<html>
<title> - NOMINATION HEARINGS OF THE 114TH CONGRESS</title>
<body><pre>[Senate Hearing 114-612]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-612

                          NOMINATION HEARINGS
                         OF THE 114TH CONGRESS

=======================================================================

                                 HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS

                               __________

            FIRST SESSION--MARCH 10 THROUGH DECEMBER 2, 2015



         SECOND SESSION--FEBRUARY 11 THROUGH SEPTEMBER 20, 2016

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                                __________
                                                 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
21-581 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>      
      
      
      
     
      


                COMMITTEE ON FOREIGN RELATIONS          
               One Hundred Fourteenth Congress          

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
             Chris Lynch, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                             (ii)         
                             
                        C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              

                     114th Congress--First Session

Tuesday, March 10, 2015 .........................................     1

    Stafford Fitzgerald Haney, of New Jersey, nominated to be 
      Ambassador to Costa Rica...................................     2

    Matthew T. McGuire, of the District of Columbia, nominated to 
      be U.S. Executive Director of the International Bank for 
      Reconstruction and Development.............................     6
        Responses to Additional Questions for the Record.........    21

    Gentry O. Smith, of North Carolina, nominated to be Director 
      of the Office of Foreign Missions..........................     8

    Charles C. Adams, Jr., of Maryland, nominated to be 
      Ambassador to the Republic of Finland......................    10
        Responses to Additional Questions for the Record.........    23

Wednesday, March 25, 2015........................................    25

    Paul A. Folmsbee, of Oklahoma, nominated to be Ambassador to 
      the Republic of Mali.......................................    27
        Responses to Additional Questions for the Record.........    47

    Mary Catherine Phee, of Illinois, nominated to be Ambassador 
      to the Republic of South Sudan.............................    30
        Responses to Additional Questions for the Record.........    52

    Cassandra Q. Butts, of the District of Columbia, nominated to 
      be Ambassador to the Commonwealth of the Bahamas...........    33
        Responses to Additional Questions for the Record.........    57

    Katherine Simonds Dhanani, of Florida, nominated to be 
      Ambassador to the Federal Republic of Somalia..............    36
        Responses to Additional Questions for the Record.........    60

Tuesday, May 19, 2015 ...........................................    69

    Miley Guilarte, of the District of Columbia, nominated to be 
      U.S. Alternate Executive Director of the Inter-American 
      Development Bank...........................................    71
        Responses to Additional Questions for the Record.........   106

    Jennifer Ann Haverkamp, of Indiana, nominated to be Assistant 
      Secretary of State for Oceans and International 
      Environmental and Scientific Affairs.......................    74
        Responses to Additional Questions for the Record.........   109

    Marcia Denise Occomy, of the District of Columbia, nominated 
      to be U.S. Director of the African Development Bank for a 
      term of five years.........................................    79
        Responses to Additional Questions for the Record.........   113



                                  iii

Tuesday, May 19, 2015--continued

    Sunil Sabharwal, of California, nominated to be U.S. 
      Alternate Executive Director of the International Monetary 
      Fund for a term of two years...............................    82
    Brian James Egan, of Maryland, nominated to be Legal Adviser 
      of the Department of State.................................    84
        Responses to Additional Questions for the Record.........   117


Wednesday, May 20, 2015 .........................................   125

    Gregory T. Delawie, of Virginia, nominated to be Ambassador 
      to the Republic of Kosov...................................   126

    Ian C. Kelly, of Illinois, nominated to be Ambassador to 
      Georgia....................................................   131

    Nancy Bikoff Pettit, nominated to be Ambassador to the 
      Republic of Latvia.........................................   133

    Azita Raji, of California, nominated to be Ambassador to the 
      Kingdom of Sweden..........................................   136

    Julieta Valls Noyes, of Virginia, nominated to be Ambassador 
      to the Republic of Croatia.................................   139


Wednesday, June 17, 2015.........................................   157

    Gayle Smith, of Ohio, nominated to be Administrator of the 
      U.S. Agency for International Development..................   158
        Responses to Additional Questions for the Record.........   185

Tuesday, June 23, 2015...........................................   231

    Glyn Townsend Davies, of the District of Columbia, nominated 
      to be Ambassador to the Kingdom of Thailand................   234
        Responses to Additional Questions for the Record.........   274

    William A. Heidt, of Pennsylvania, nominated to be Ambassador 
      to the Kingdom of Cambodia.................................   237
        Responses to Additional Questions for the Record.........   275

    Jennifer Zimdahl Galt, of Colorado, nominated to be 
      Ambassador to Mongolia.....................................   241

    David Hale, of New Jersey, nominated to be Ambassador to the 
      Islamic Republic of Pakistan...............................   255
        Responses to Additional Questions for the Record.........   276

    Alaina B. Teplitz of Illinois, nominated to be Ambassador to 
      the Federal Democratic Republic of Nepal...................   258

    Sheila Gwaltney, of California, nominated to be Ambassador to 
      the Kyrgyz Republic........................................   261
        Responses to Additional Questions for the Record.........   280

    Atul Keshap, of Virginia, nominated to be Ambassador to the 
      Democratic Socialist Republic of Sri Lanka and to the 
      Republic of Maldives.......................................   263
        Responses to Additional Questions for the Record.........   282

Thursday, July 9, 2015 ..........................................   287

    Hon. Michele Thoren Bond, of the District of Columbia, 
      nominated to be an Assistant Secretary of State (Consular 
      Affairs)...................................................   290

    Dr. Sarah Mendelson, of the District of Columbia, nominated 
      to be Representative of the U.S. on the Economic and Social 
      Council of the U.N. and Alternate Representative of the 
      U.S. to the General Assembly of the U.N....................   299
        Responses to Additional Questions for the Record.........   307

Wednesday, July 15, 2015 ........................................   311

    Hon. Roberta S. Jacobson, of Maryland, nominated to be 
      Ambassador to the United Mexican States....................   313
        Responses to Additional Questions for the Record.........   339

    Laura Farnsworth Dogu, of Texas, nominated to be Ambassador 
      to the Republic of Nicaragua...............................   315
        Responses to Additional Questions for the Record.........   360
Wednesday, July 15, 2015--continued

    Perry L. Holloway, of South Carolina, nominated to be 
      Ambassador to the Cooperative Republic of Guyana...........   317
        Responses to Additional Questions for the Record.........   362

    Peter F. Mulrean, of Massachusetts, nominated to be 
      Ambassador to the Republic of Haiti........................   320
        Responses to Additional Questions for the Record.........   363


Wednesday, July 22, 2015 ........................................   367

    Hon. Paul Wayne Jones, of Maryland, nominated to be 
      Ambassador to the Republic of Poland.......................   371

    Hon. Hans G. Klemm, of Michigan, nominated to be Ambassador 
      to Romania.................................................   373

    Samuel D. Heins, of Minnesota, nominated to be Ambassador to 
      the Kingdom of Norway......................................   376

    James Desmond Melville, Jr., of New Jersey, nominated to be 
      Ambassador to the Republic of Estonia......................   379
        Responses to Additional Questions for the Record.........   403

    Kathleen Ann Doherty, of New York, nominated to be Ambassador 
      to the Republic of Cyprus..................................   382
        Responses to Additional Questions for the Record.........   404

    Thomas O. Melia, of Maryland, nominated to be an Assistant 
      Administrator of the U.S. Agency for International 
      Development................................................   385
        Responses to Additional Questions for the Record.........   404

Thursday, July 30, 2015 .........................................   415

    Lucy Tamlyn, of New York, nominated to be Ambassador to the 
      Republic of Benin..........................................   417
        Responses to Additional Questions for the Record.........   439

    David R. Gilmour, of Texas, nominated to be Ambassador to the 
      Togolese Republic..........................................   419
        Responses to Additional Questions for the Record.........   439

    Jeffrey J. Hawkins, Jr., of California, nominated to be 
      Ambassador to the Central African Republic.................   422
        Responses to Additional Questions for the Record.........   440

    Daniel H. Rubinstein, of Virginia, nominated to be Ambassador 
      to the Republic of Tunisia.................................   425
        Responses to Additional Questions for the Record.........   443

    Carolyn Patricia Alsup, of Florida, nominated to be 
      Ambassador to the Republic of the Gambia...................   428


Tuesday, August 4, 2015 .........................................   445

    Ann Calvaresi Barr, of Maryland, nominated to be Inspector 
      General, U.S. Agency for International Development.........   448

    David Malcolm Robinson, of Connecticut, nominated to be an 
      Assistant Secretary of State (Conflict and Stabilization 
      Operations) and Coordinator for Reconstruction and 
      Stabilization..............................................   451

    Edwin Richard Nolan, Jr., of Massachusetts, nominated to be 
      Ambassador to the Republic of Suriname.....................   454
        Responses to Additional Questions for the Record.........   472

    John L. Estrada, of Florida, nominated to be Ambassador to 
      the Republic of Trinidad and Tobago........................   457
        Responses to Additional Questions for the Record.........   473

    Scott Allen, of Maryland, nominated to be U.S. Director of 
      the European Bank for Reconstruction and Development.......   460

Tuesday, September 22, 2015......................................   475

    Susan Coppedge, of Georgia, nominated to be Director of the 
      Office to Monitor and Combat Trafficking...................   479
        Responses to Additional Questions for the Record.........   492
Thursday, October 1, 2015 .......................................   497

    Hon. Robert Porter Jackson, of Virginia, nominated to be 
      Ambassador to the Republic of Ghana........................   499
        Responses to Additional Questions for the Record.........   523

    Hon. Harry K. Thomas, Jr., of New York, nominated to be 
      Ambassador to the Republic of Zimbabwe.....................   502
        Responses to Additional Questions for the Record.........   524
    Julie Furuta-Toy of Wyoming, nominated to be Ambassador to 
      the Republic of Equatorial Guinea..........................   505
        Responses to Additional Questions for the Record.........   525

    Dennis B. Hankins, of Minnesota, nominated to be Ambassador 
      to the Republic of Guinea..................................   508
        Responses to Additional Questions for the Record.........   526

    Linda I. Etim, of Wisconsin, nominated to be an Assistant 
      Administrator of the U.S. Agency for International 
      Development................................................   510
        Responses to Additional Questions for the Record.........   527

Wednesday, October 28, 2015 .....................................   557

    John Morton, of Massachusetts, nominated to be Executive Vice 
      President of the Overseas Private Investment Corporation...   558
        Responses to Additional Questions for the Record.........   582

    Kenneth Damian Ward, of Virginia, nominated to be U.S. 
      Representative to the Organization for the Prohibition of 
      Chemical Weapons...........................................   560
        Responses to Additional Questions for the Record.........   583

    Hon. Peter William Bodde, of Maryland, nominated to be 
      Ambassador to Libya........................................   563
        Responses to Additional Questions for the Record.........   583

    Marc Jonathan Sievers, of Maryland, nominated to be 
      Ambassador to the Sultanate of Oman........................   566
        Responses to Additional Questions for the Record.........   585

    Elisabeth I. Millard, of Virginia, nominated to be Ambassador 
      to the Republic of Tajikistan..............................   569
        Responses to Additional Questions for the Record.........   585

Thursday, October 29, 2015 ......................................   587

    Hon. Thomas A. Shannon, Jr., of Virginia, nominated to be an 
      Under Secretary of State (Political Affairs)...............   589
        Responses to Additional Questions for the Record.........   629

    Laura S.H. Holgate, of Virginia, nominated to be the 
      Representative of the U.S. to the International Atomic 
      Energy Agency, and nominated to be Representative of the 
      U.S. of America to the Vienna Office of the United Nations.   609
        Responses to Additional Questions for the Record.........   644

Tuesday, November 3, 2015........................................   657

    The Hon. Deborah R. Malack of Virginia, nominated to be 
      Ambassador to the Republic of Uganda.......................   659
        Responses to Additional Questions for the Record.........   677

    Lisa J. Peterson, of Virginia, nominated to be Ambassador to 
      the Kingdom of Swaziland...................................   662
        Responses to Additional Questions for the Record.........   680

    H. Dean Pittman, of the District of Columbia, nominated to be 
      Ambassador to the Republic of Mozambique...................   665
        Responses to Additional Questions for the Record.........   681
Tuesday, December 1, 2015 .......................................   685

    Amos J. Hochstein, of the District of Columbia, nominated to 
      be an Assistant Secretary of State (Energy Resources)......   687
        Responses to Additional Questions for the Record.........   726

    Catherine Ebert-Gray, of Virginia,to be Ambassador to the 
      Independent State of Papua New Guinea, the Solomon Islands, 
      and the Republic of Vanuatu................................   691
        Responses to Additional Questions for the Record.........   736

    Hon. Scot Alan Marciel, of California, nominated to be 
      Ambassador to the Union of Burma...........................   693
        Responses to Additional Questions for the Record.........   737

    Linda Swartz Taglialatela, of New York, nominated to be 
      Ambassador to Barbados, the Federation of St. Kitts and 
      Nevis, Saint Lucia, Antigua and Barbuda, the Commonwealth 
      of Dominica, Grenada, and Saint Vincent and the Grenadines.   706
        Responses to Additional Questions for the Record.........   745

    John D. Feeley, of the District of Columbia, nominated to be 
      Ambassador to the Republic of Panama.......................   709
        Responses to Additional Questions for the Record.........   749

    Jean Elizabeth Manes, of Florida, nominated to be Ambassador 
      to the Republic of El Salvador.............................   712
        Responses to Additional Questions for the Record.........   752

    Todd C. Chapman, of Texas, nominated to be Ambassador to the 
      Republic of Ecuador........................................   715
        Responses to Additional Questions for the Record.........   756

Wednesday, December 2, 2015 .....................................   763

    David McKean, of Massachusetts, nominated to be Ambassador to 
      Luxembourg.................................................   765

    G. Kathleen Hill, of Colorado, nominated to be Ambassador to 
      the Republic of Malta......................................   768

    Eric Seth Rubin, of New York, nominated to be Ambassador to 
      the Republic of Bulgaria...................................   771
        Responses to Additional Questions for the Record.........   797

    Kyle R. Scott, of Arizona, nominated to be Ambassador to the 
      Republic of Serbia.........................................   774
        Responses to Additional Questions for the Record.........   798

    Carlos J. Torres, of Virginia, nominated to be Deputy 
      Director of the Peace Corps................................   778

                     114th Congress--Second Session

Thursday February 11, 2016.......................................   801

    Hon. Karen Brevard Stewart, of Florida, nominated to be 
      Ambassador to the Republic of the Marshall Islands.........   804

    Robert Annan Riley III, of Florida, nominated to be 
      Ambassador to the Federated States of Micronesia...........   808

    Swati A. Dandekar, of Iowa, nominated to be U.S. Executive 
      Director of the Asian Development Bank.....................   812
        Responses to Additional Questions for the Record.........   829

    Matthew John Matthews, of Oregon, nominated to be United 
      States Senior Official for the Asia-Pacific Economic 
      Cooperation, APEC, Forum...................................   814
        Responses to Additional Questions for the Record.........   831

    Marcela Escobari, of Massachusetts, nominated to be an 
      Assistant Administrator of the United States Agency for 
      International Development..................................   817
        Responses to Additional Questions for the Record.........   832
Thursday, March 10, 2016.........................................   839

    Christine Ann Elder, of Kentucky, nominated to be Ambassador 
      to the Republic of Liberia.................................   841
        Responses to Additional Questions for the Record.........   866

    R. David Harden, of Maryland, nominated to be an Assistant 
      Administrator of the United States Agency for International 
      Development................................................   844
        Responses to Additional Questions for the Record.........   871

    Elizabeth Holzhall Richard, of Virginia, nominated to be 
      Ambassador to the Lebanese Republic........................   847
        Responses to Additional Questions for the Record.........   881

    Stephen Michael Schwartz, of Maryland, nominated to be 
      Ambassador to the Federal Republic of Somalia..............   850
        Responses to Additional Questions for the Record.........   888

    Kelly Keiderling-Franz, of Virginia, nominated to be 
      Ambassador to the Oriental Republic of Uruguay.............   859
        Responses to Additional Questions for the Record.........   899

    Mark Sobel, of Virginia, nominated to be United States 
      Executive Director of the International Monetary Fund for a 
      Term of Two Years..........................................   861
        Responses to Additional Questions for the Record.........   905

    Adam H. Sterling, nominated to be Ambassador to the Slovac 
      Republic...................................................   861
        Responses to Additional Questions for the Record.........   913


Wednesday, June 8, 2016..........................................   921

    Hon. Geeta Pasi, of New York, nominated to be Ambassador to 
      the Republic of Chad.......................................   923
        Responses to Additional Questions for the Record.........   935

    Hon. Mary Beth Leonard, of Massachusetts, nominated to be 
      U.S. Representative to the African Union...................   925
        Responses to Additional Questions for the Record.........   939

    Anne S. Casper, of Nevada, nominated to be Ambassador to the 
      Republic of Burundi........................................   928
        Responses to Additional Questions for the Record.........   941


Tuesday, June 21, 2016...........................................   945

    Anne Hall, of Maine, nominated to be Ambassador to the 
      Republic of Lithuania......................................   946
        Responses to Additional Questions for the Record.........   986

    Hon. Marie L. Yovanovitch, of Connecticut, nominated to be 
      Ambassador to Ukraine......................................   950
        Responses to Additional Questions for the Record.........   992

    Hon. Geoffrey R. Pyatt, of California, nominated to be 
      Ambassador to the Hellenic Republic of Greece..............   953
        Responses to Additional Questions for the Record.........   995

    Hon. Douglas Allan Silliman, of Texas, nominated to be 
      Ambassador to the Republic of Iraq.........................   965
        Responses to Additional Questions for the Record.........  1004

    Hon. Peter Michael McKinley, Virgina, nominated to be 
      Ambassador to the Federative Republic of Brazil............   969
        Responses to Additional Questions for the Record.........  1009

    Lawrence Robert Silverman, of Massachusetts nominated to be 
      Ambassador to the State of Kuait...........................   971
        Responses to Additional Questions for the Record.........  1019

    Carol Z. Perez, of Virginia, nominated to be Ambassador to 
      the Republic of Chile......................................   974
        Responses to Additional Questions for the Record.........  1022
Wednesday, July 13, 2016.........................................  1029

    Hon. Sung Y. Kim, of California, nominated to be Ambassador 
      to the Republic of the Philippines.........................  1030
        Responses to Additional Questions for the Record.........  1047

    Rena Bitter, of Texas, nominated to be Ambassador to the Lao 
      People's Democratic Republic...............................  1033
        Responses to Additional Questions for the Record.........  1050

    Amala Shirin Lakhdhir, of Connecticut, nominated to be 
      Ambassador to Malaysia.....................................  1036
        Responses to Additional Questions for the Record.........  1052


Tuesday, September 20, 2016......................................  1059

    Hon. W. Stuart Symington, of Missouri, nominated to be 
      Ambassador to the Federal Republic of Nigeria..............  1061
        Responses to Additional Questions for the Record.........  1079

    Andrew Robert Young, of California, nominated to be 
      Ambassador to Burkina Faso.................................  1064
        Responses to Additional Questions for the Record.........  1086

    Joseph R. Donovan, Jr., of Virginia, nominated to be 
      Ambassador to the Republic of Indonesia....................  1068
        Responses to Additional Questions for the Record.........  1089


Index of nominees................................................  1095

.                          
                              NOMINATIONS

                              ----------                              


                        TUESDAY, MARCH 10, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Stafford Fitzgerald Haney, of New Jersey, to be Ambassador to 
        Costa Rica
Matthew T. McGuire, of the District of Columbia, to be U.S. 
        Executive Director of the International Bank for 
        Reconstruction and Development for a term of two years
Gentry O. Smith, of North Carolina, to be Director of the 
        Office of Foreign Missions, and to have the rank of 
        Ambassador
Charles C. Adams, Jr., of Maryland, to be Ambassador to the 
        Republic of Finland
                              ----------                              

    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. David Perdue, 
presiding.
    Present: Senators Perdue, Gardner, and Kaine.

            OPENING STATEMENT OF HON. DAVID PERDUE, 
                   U.S. SENATOR FROM GEORGIA

    Senator Perdue. This hearing of the Senate Foreign 
Relations Subcommittee on State Department Management will come 
to order.
    Thank you all for being here today to hear from the 
nominees to very important positions that will allow these 
Americans to proudly represent the United States abroad. We 
have nominees for Ambassador to two countries, Costa Rica and 
Finland, both of which we share strong diplomatic ties. Our 
nominee for U.S. Executive Director for the International Bank 
for Reconstruction and Development and Director of Office of 
Foreign Missions, which remains very important as we seek to 
secure our diplomatic facilities abroad and the Americans 
working there.
    I understand most of you have already been through this 
process and are coming back for a second go-round. It is Cory's 
and my first. So you will be patient with us today. Will you 
not? [Laughter.]
    However, I was not here last Congress. So I appreciate your 
forbearance today, and we will move right through this as 
expeditiously as we can.
    With that, I would like to recognize Senator--I am sorry. 
We will move right through this since he is not here.
    Our first nominee--I am just going to highlight this just 
briefly and apologize for this, but I want to go through this.
    Our first nominee, Mr. Stafford Fitzgerald Haney, who is 
nominated to be Ambassador to Costa Rica. Mr. Haney currently 
serves as Director of Business Development and Client Services 
at Pzena Investment Management, has served in positions with 
Pepsico and Citibank in some major Latin American countries 
such as Brazil, Mexico, and Puerto Rico. He graduated from 
Georgetown University School of Foreign Service with a masters 
and bachelors degree.
    Our second nominee today is Mr. Matthew T. McGuire, who is 
nominated to be U.S. Executive Director of the International 
Bank for Reconstruction and Development for a term of 2 years. 
Mr. McGuire has held multiple positions in the Department of 
the Treasury and Commerce and prior to that, he had a very 
successful career in the finance industry. Mr. McGuire is a 
graduate of Brown University and has degrees from the 
University of London and Harvard.
    Our third nominee is Mr. Gentry O. Smith, who is nominated 
to be Director of the Office of Foreign Missions with the rank 
of Ambassador. Mr. Smith is a career Foreign Service officer 
who started with the State Department in 1987. He has served in 
many posts overseas, including Cairo, Tokyo, and Burma, as well 
as the Secretary of State's protective detail. He also served 
as Deputy Assistant Secretary and Assistant Director for 
Countermeasures. Mr. Smith is a graduate of North Carolina 
State University.
    Our fourth nominee is Mr. Charles C. Adams, Jr., who is 
nominated to be the U.S. Ambassador to the Republic of Finland. 
Mr. Adams is currently senior counsel at Akin Gump Strauss 
Hauer & Feld, LLP. He has led a successful career, spending 
much of his time living in Geneva, Switzerland, as a managing 
partner for various law firms. He is a graduate of Dartmouth 
College and the University of Virginia School of law.
    Thank you all for being here today and sharing your 
thoughts and viewpoints with us today.
    We would remind you all that your full statements will be 
included in the record, as it was the last time you were here, 
without objection. So if you could please keep your remarks to 
no more than 5 minutes or so, we appreciate that so members of 
the committee can engage with you on these matters. And we will 
move as expeditiously as we can.
    With that, we will take statements, starting with Mr. Haney 
first, please.

       STATEMENT OF STAFFORD FITZGERALD HANEY, NOMINATED 
                 TO BE AMBASSADOR TO COSTA RICA

    Mr. Haney. Chairman Perdue, Senator Gardner, thank you. It 
is an honor to appear before you today as President Obama's 
nominee to serve as the next U.S. Ambassador to Costa Rica.
    I am profoundly humbled by this opportunity to serve and 
thank the President and the Secretary of State for the 
confidence they have placed in me. If confirmed, I look forward 
to working with you and your colleagues in Congress to protect 
U.S. citizens in Costa Rica, deepen the bonds that unite our 
countries, and advance U.S. interests in Central America.
    With the chairman's permission, I would like to acknowledge 
friends and family without whose support I would not be here 
today, starting with my wife, Rabbi Andrea Haney, and my 
children, Asher, Nava, Eden, and Shaia, who are at home 
watching hopefully. If I am confirmed, my wife and our four 
children will be joining me in San Jose, and it is only through 
their love and support that I am here today.
    I would also like to mention my mother, father, and 
brother--may they rest in peace--who are here today with us in 
our hearts. My mother, Sandra Haney, was and still is my hero. 
She is also a link in a long line of family that has in various 
ways served our country proudly. From a fifth great-granduncle 
who fought in the Revolutionary War to my brother who served 
both overseas and at home to my great uncle who recently 
received an honorary doctorate in public service and was 
recognized by the Tennessee State legislature to my mother's 
marches and sit-ins to protest what she saw as injustices not 
compatible with the America we aspire to be, we have a long and 
proud tradition of serving our Nation. It is in my mother's 
honor and in her memory that I hope, if I am confirmed, to 
dedicate my service.
    Costa Rica is an important ally in a region of critical 
strategic importance to the United States. It is the most 
stable democracy in Central America and its long-held 
traditions of protecting human rights and freedom of expression 
are a model for the region. Its strong commitment to investing 
in education and health has helped Costa Rica achieve literacy, 
life expectancy, infant morality, and income levels that are 
significantly better than elsewhere in Central America. It is 
no surprise that these positive attributes have attracted 
significant numbers of Americans to the country. Today, 
approximately 100,000 U.S. citizens call Costa Rica home and 
more than 1 million visit annually. If confirmed, their safety 
and well-being will be my top priority.
    Despite its successes, Costa Rica, like its neighbors, 
confronts many challenges, including security challenges, as 
international drug trafficking organizations and organized 
crime increasingly penetrate Central America. The United States 
and Costa Rica enjoy an excellent partnership in security 
cooperation. If confirmed, I will continue to work with the 
Government of Costa Rica to ensure that organized crime does 
not undermine the country's economy and democratic 
institutions.
    Another of my highest priorities will be promoting greater 
Central American integration. As outlined in the Strategy for 
U.S. Engagement in Central America, the region will not prosper 
without better regional cooperation on trade, infrastructure 
development, strengthened democratic institutions, energy 
integration, and investment.
    Given its ability and relative prosperity, Costa Rica can 
and should play a critical role in advancing our strategy in 
Central America. It can and should lead in working to create 
conditions in Central America that are conducive to reducing 
poverty and violence and creating jobs and opportunity, and it 
should serve as an example of what is possible in the region. 
President Solis has committed to working to promote regional 
integration and prosperity, and if confirmed, I will support 
him in those efforts.
    I have many years experience living and working in 
international business in Mexico, Central America, the 
Caribbean, and Brazil. I understand the region and the 
challenges it faces. As President Solis made clear during his 
first year in office, Costa Rica is serious about improving its 
business climate and attracting additional foreign investment. 
If confirmed, my private sector experience will be an asset to 
helping Costa Rica achieve those goals. It would also serve me 
in working to advocate for stronger intellectual property 
protection, promote entrepreneurship, and public-private 
partnerships, and ensure that U.S. companies and investors 
encounter a fair and level playing field for doing business in 
Costa Rica.
    If confirmed, I will work closely with Costa Rica to 
advance the many other policy objectives and priorities the 
United States and Costa Rica share. Costa Rica shares our 
commitment to protecting democratic freedoms and human rights 
and is vigilantly resisting any attempts to weaken the inter-
American human rights system. This support for basic human 
rights, democracy, and freedom has never been more important in 
the region than today. Costa Rica is an international leader 
with important initiatives to mitigate and adapt to climate 
change and promote renewable energy use and sustainable 
development. I believe Costa Rica can become a regional hub of 
innovation and has the potential to assume a leadership role in 
advancing good governance and prosperity throughout Central 
America.
    As our dedicated team at Embassy San Jose states, a safe, 
prosperous, and green Costa Rica not only benefits the citizens 
of both of our nations, but also the entirety of Central 
America.
    Mr. Chairman, committee members, I thank you again for your 
consideration of my nomination to serve as Ambassador to Costa 
Rica, and I welcome your questions.
    [The prepared statement of Mr. Haney follows:]

            Prepared Statement of Stafford Fitzgerald Haney

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as the next 
United States Ambassador to Costa Rica.
    I am profoundly humbled by this opportunity to serve and thank the 
President and the Secretary of State for the confidence they have 
placed in me. If confirmed, I look forward to working with you and your 
colleagues in Congress to protect U.S. citizens in Costa Rica, deepen 
the bonds that unite our countries, and advance U.S. interests in 
Central America.
    With the chairman's permission, I would like to acknowledge friends 
and family without whose support I would not be here today--starting 
with my wife, Rabbi Andrea Haney, and my children Asher, Nava, Eden, 
and Shaia. If I am confirmed, my wife and our four children will be 
joining me in San Jose and it is only through their love and support 
that I am here today. I would also like to acknowledge my mother-in-
law, Betsy Dobrick, my brothers and sisters-in-law Adam and Allison 
Dobrick and Jeremy Dobrick and Tamara Hoover, and various close 
friends, whose support means so much to me and my family.
    Finally, I would also like to mention my mother, father, and 
brother, may they rest in peace, who are here today with us in our 
hearts. My mother, Sandra Haney, was, and still is, my hero. As a young 
widow with two young children, she left home and family to provide my 
brother and me with the best education and opportunities she could. 
Working during the day and going to school at night, she showed us, by 
her example, that the United States is truly the land of opportunity 
for those who work hard on a level playing field. She did not have it 
easy as a single African-American woman raising two children alone in 
the 1970s, but she never gave up and she knew her sacrifices would 
allow her children to have a better life. It was her firmly held 
belief; one which she passed on, that America's core values should 
serve as an example throughout the world. She also was a link in a long 
line of family that has in various ways served our Nation proudly. From 
a 5th great-granduncle who fought in the Revolutionary War to my 
brother who served both overseas and at home to my greatuncle who 
recently received an honorary doctorate in public service and was 
recognized by the Tennessee State legislature to my mother's marches 
and sit-ins to protest what she saw as injustices not compatible with 
the America we aspire to be--we have a long and proud tradition of 
serving our Nation. It is in my mother's honor and in her memory that I 
hope, if I am confirmed, to dedicate my service.
    Costa Rica is an important ally in a region of critical strategic 
importance to the United States. It is the most stable democracy in 
Central America, and its long-held traditions of protecting human 
rights and freedom of expression are a model for the region. Its strong 
commitment to investing in education and health has helped Costa Rica 
achieve high literacy, life expectancy, and income levels and a low 
infant mortality rate. It is no surprise that these positive attributes 
have attracted significant numbers of Americans to the country. Today, 
approximately 100,000 U.S. citizens call Costa Rica home and more than 
1 million visit annually. If confirmed, their safety and well-being 
will be my top priority.
    Despite its successes, Costa Rica confronts many challenges, 
including security challenges, as international drug trafficking 
organizations and organized crime increasingly penetrate Central 
America. The United States and Costa Rica enjoy an excellent 
partnership in security cooperation. If confirmed, I will continue to 
work with the Government of Costa Rica to ensure that organized crime 
does not undermine the country's economy and democratic institutions.
    If confirmed, another of my highest priorities will be promoting 
greater Central American integration. As outlined in the Strategy for 
U.S. Engagement in Central America, the region will not prosper without 
better regional cooperation on trade, infrastructure development, 
strengthened democratic institutions, energy integration, and 
investment. Greater integration has long been an aspiration in Central 
America, but effective mechanisms for achieving that goal have remained 
elusive. The United States can play a constructive role in helping 
Central America create jobs and economic opportunities for its 43 
million people, by helping the region improve infrastructure, integrate 
markets, reduce nontariff barriers, and benefit more from its free 
trade agreement.
    Given its stability and relative prosperity, Costa Rica can help 
play a critical role in advancing our strategy in Central America. It 
can help lead in working to create conditions in Central America that 
are conducive to further reducing poverty and violence and creating 
jobs and opportunity and it can serve as an example of what is possible 
in the region. President Solis has stated a commitment to working to 
promote regional integration and prosperity, and, if confirmed, I will 
support him in those efforts. I will also work to create stronger 
linkages between the American Chambers of Commerce in Central America, 
so that the private sector is fully incorporated into the process of 
seeking solutions to the region's development challenges.
    I have many years' experience living and working in international 
business in Mexico, Central America, the Caribbean, and Brazil. I 
understand the region and the challenges it faces. As President Solis 
made clear during his first year in office; Costa Rica is serious about 
improving its business climate, and attracting foreign investment. If 
confirmed, my private sector experience will be an asset in helping 
Costa Rica advance in those areas. It will also serve me in working to 
advocate for stronger intellectual property protection, promote 
entrepreneurship and public-private partnerships, and ensure that U.S. 
companies and investors encounter a fair and level playing field for 
doing business in Costa Rica.
    If confirmed, I will work closely with Costa Rica to advance the 
many other policy objectives and priorities the United States and Costa 
Rica share. Costa Rica shares our commitment to protecting democratic 
freedoms and human rights, and is vigilantly resisting any attempts to 
weaken the Inter-American Human Rights System. This support for basic 
human rights, democracy and freedom has never been more important in 
the region than today. Costa Rica is an international leader with 
important initiatives to mitigate and adapt to climate change and 
promote renewable energy use and sustainable development. I believe 
Costa Rica can become a regional hub of innovation and has the 
potential to assume a leadership role in advancing good governance and 
prosperity throughout Central America.
    As our dedicated team at Embassy San Jose states: a safe, 
prosperous, and green Costa Rica not only benefits the citizens of both 
of our nations, but also the entirety of Central America.

    Senator Perdue. Thank you, Mr. Haney.
    Mr. McGuire.

 STATEMENT OF MATTHEW T. McGUIRE, PH.D., NOMINATED TO BE U.S. 
EXECUTIVE DIRECTOR OF THE INTERNATIONAL BANK FOR RECONSTRUCTION 
                        AND DEVELOPMENT

    Dr. McGuire. Thank you, Chairman Perdue, and thank you for 
convening us today and chairing this session. Thank you also to 
Senator Kaine for presiding today. And, Senator Gardner, thank 
you for coming. It seems appropriate that I congratulate 
Senator Perdue and Senator Gardner for your recent victories 
and for joining the Senate. It is quite an honor, and it is 
always good to have fresh thinking and fresh blood up here.
    I would also like to just thank my mother, who is here 
today, Georgiana McGuire. I was noting earlier with a few 
people that the last time I did this, I had aunts and uncles 
and in-laws and all sorts of people. You do it a second time, 
you get Mom. [Laughter.]
    I am thrilled to have her, but it is a lesson to everybody 
here.
    It is an honor and a privilege, of course, to be here as 
President Obama's nominee as Executive Director for the 
International Bank for Reconstruction and Development, 
otherwise known as the World Bank.
    Rather than read the full statement I sent over for the 
formal record, I would like to briefly discuss my career to 
date and then frame how I would approach the role of Executive 
Director, if I were to be confirmed.
    So with that, I would just say that during the first part 
of my career, I taught and was focused on issues related to 
economic and development policy both in the United States and 
abroad. I got a Ph.D. in anthropology from Harvard, finishing 
in 1988, and my dissertation was on the redevelopment of public 
housing in Chicago. During that time, I also spent several 
months in Ethiopia and Eritrea researching the relationship 
between those countries shortly after the end of their 30-year-
long war. And when I finished my Ph.D., I ran a welfare-to-work 
job training program in New York before joining a firm that 
helped U.S. cities redevelop public housing projects into 
mixed-income communities.
    In 2003, I moved into the financial services industry, and 
I spent the next 8 years working for several mutual fund and 
hedge fund companies raising capital and serving as a senior 
executive in three entrepreneurial and dynamic firms. During 
that time, I began to more fully understand the role that 
financial markets play in our economy and how interconnected 
the global economy is as a result of the ease with which 
capital moves across national borders, industry sectors, and 
asset classes. In an era where CEO's and investors can deploy 
each dollar or euro or real almost anywhere in the world at 
almost at a moment's notice, it is increasingly important that 
countries like ours play close attention to their financial 
positions and that they strive to maintain and strengthen the 
integrity of their capital markets.
    That view has been strengthened by my experience and my 
time over the last 4 years at the Department of Commerce and at 
the Department of the Treasury where I have worked closely with 
U.S. businesses on a range of issues, including many related to 
international trade.
    Should this committee and the full Senate confirm me, I 
will strive to be a sound steward of our country's capital at 
the bank at all times. I will work to ensure that each dollar 
we commit is used to support the values that have proven so 
durable since America's founding, that open societies are the 
strongest societies, that transparent systems are the most 
successful systems, and that those countries which endeavor to 
give all of their citizens a fair shot at becoming educated, 
being healthy, and achieving economic independence are the 
countries that will succeed no matter where they happen to be 
located. Those are just a few of the values I have watched 
President Obama champion for many years now, and I would be 
honored to carry them forward on his behalf, on the country's 
behalf as the Executive Director of the bank.
    [The prepared statement of Mr. McGuire follows:]

                Prepared Statement of Matthew T. McGuire

    Thank you, Chairman Perdue and Senator Kaine, for presiding over 
today's hearing. I would also like to thank Chairman Corker, Ranking 
Member Menendez, and the distinguished members of the committee. It is 
an honor and a privilege to be here, as President Obama's nominee for 
Executive Director of the International Bank for Reconstruction and 
Development. I have enjoyed meeting some of you and your staff during 
the confirmation process, and I look forward to answering any questions 
you might have.
    My mother was part of the first Peace Corps group ever to go 
overseas, ``Ghana I,'' back in 1961. She was the first person in her 
family to go to college, having worked her way through, and when she 
graduated she heard President Kennedy's call to reach out beyond 
America's shores and to make a difference however small or however 
large it might be. She taught English in a small town in Ghana called 
Tema, and many years later a student of hers from the Tema Secondary 
School became one of my professors at Brown University. As you might 
imagine, I grew up hearing many stories about those sorts of 
connections, and I grew up hearing about the importance of America's 
role in the world, especially through its uniquely American 
institutions, such as the Peace Corps. My father, who died when I was 6 
years old, also served in the Peace Corps, in what was then East 
Pakistan and is now Bangladesh. He spent most of his career working on 
international affairs as well, and his influence on me has been 
considerable even in his absence.
    I also grew up working at my family's business here in Washington, 
DC, The McGuire Funeral Service. My great-grandfather, Robert Grayson 
McGuire, founded the funeral home in 1912, and when I was old enough I 
began spending my summers and my weekends there, washing cars, 
arranging flowers, shoveling snow off the driveway, and even acting as 
a pallbearer when a family was in need of another set of hands. And I 
will always remember that my mother and my uncle paid me minimum wage 
and no more, punching a time clock like everyone else, for every hour 
and every minute that I worked there.
    Through the course of watching my grandfather, my mother, my aunt 
and my uncle, run the funeral home, I learned numerous things. I 
learned about how important it is to have a bank that provides credit 
in bad times as well as good; about how having economic independence 
makes it easier to engage with political issues of the day, like the 
civil rights movement, which my family was deeply involved in; and 
about the pride and responsibility that comes from being able to hire 
more people as your company grows. These are simple, yet powerful 
things that I carry with me to this day.
    The first part of my career was squarely focused on issues of 
economic equality, and how public policies can increase the 
possibilities of ordinary citizens to raise their incomes and have a 
shot at realizing their dreams. I got a Ph.D. in Anthropology from 
Harvard, finishing in 1998, and my dissertation was on the 
redevelopment of public housing in Chicago. During that time I also 
spent several months in Ethiopia and Eritrea, researching the 
relationship between those countries shortly after the end of their 30 
year-long war. And when I finished my Ph.D., I ran a welfare-to-work 
job training program in New York before joining a firm that helped U.S. 
cities redevelop public housing projects into mixed-income communities.
    In 2003, I moved into the financial services industry, and I spent 
the next 8 years working for several mutual fund and hedge fund 
companies, raising capital and serving as a senior executive in three 
entrepreneurial and dynamic firms. During that time I began to more 
fully understand the role that financial markets play in our economy, 
and how interconnected the global economy is as a result of the ease 
with which capital moves across national borders, industry sectors, and 
asset classes. In an era where CEOs and investors can deploy each next 
dollar, or euro, or real, almost anywhere in the world at almost a 
moment's notice, it is increasingly important that countries like ours 
pay close attention to their financial positions, and that they strive 
to maintain and strengthen the integrity of their capital markets.
    And that is what I would like to close with. If confirmed, you can 
be sure that I will undertake the role of Executive Director with that 
very sensibility in mind at all times. I will strive to be a sound 
steward of our country's capital at the Bank, and I will work to ensure 
that each dollar we commit is used to support the values that have 
proven so durable since America's founding: that open societies are the 
strongest societies; that transparent systems are the most successful 
systems; and that those countries which endeavor to give all of their 
citizens a fair shot at becoming educated, being healthy, and achieving 
economic independence, are the countries that will succeed no matter 
where they happen to be located. Those are just a few of the values I 
have watched President Obama champion for many years now, and I would 
be honored to carry them forward on his behalf, and on the country's 
behalf, as Executive Director of the Bank.
    I look forward to answering any questions you have, and I thank you 
again for allowing me to come before you today.

    Senator Perdue. Thank you, Mr. McGuire.
    Mr. Smith.

            STATEMENT OF GENTRY O. SMITH, NOMINATED 
        TO BE DIRECTOR OF THE OFFICE OF FOREIGN MISSIONS

    Mr. Smith. Thank you, Mr. Chairman, Senator Kaine. I am 
honored to appear before you today as President Obama's nominee 
to be the next Director of the Office of Foreign Missions, OFM. 
I am profoundly grateful for the confidence that the President 
and Secretary Kerry have demonstrated in nominating me for this 
unique and important position.
    My entire professional life has been dedicated to public 
service, beginning with my first career as a police officer in 
Raleigh, NC, to my assignments at embassies in Tokyo, Rangoon, 
and Cairo, and my most recent as the Deputy Assistant Secretary 
for Countermeasures for the Bureau of Diplomatic Security. I 
have strived in each to improve the conditions in which our 
colleagues live and work. I believe my dedication and 
commitment in this regard will serve me well, if given the 
opportunity to lead the Office of Foreign Missions.
    As an organization, its primary goals being to use 
reciprocity to ensure the equitable treatment of U.S. 
diplomatic and consular missions and personnel abroad, 
regulating the activities of foreign missions in the United 
States to protect our foreign policy and national security 
interests, protecting our U.S. public against abuses of 
privileges and immunities by foreign missions operating here in 
the United States, and providing services and assistance to 
foreign missions that are located here on a reciprocal basis.
    As you are aware, OFM was established in 1982 under the 
Foreign Missions Act. In passing the act, Congress made it 
clear that the operations of foreign missions in the United 
States are a proper subject for the exercise of Federal 
jurisdiction.
    For more than 30 years, the act guided the Department's 
management and extension of foreign missions in the United 
States for its privileges and benefits associated with 
acquiring real property, motor vehicle and driving services, 
for tax exemptions, customs clearances, domestic travel 
courtesies and restrictions.
    The committee is well aware of the Department's ongoing 
efforts to ensure that our personnel abroad work in facilities 
that are safe and secure and functional. I can authoritatively 
attest that the relocation of an American Embassy is a complex 
and challenging task. To accomplish this job, the United States 
must have the interest and support of the host governments. In 
many countries, such support is there for the asking. In 
countries where the support is lacking, OFM plays a critical 
role in assisting with the resolution of impasses we sometimes 
face with foreign governments during our attempts to acquire 
real property in those countries and relocating and 
constructing our facilities.
    When a country has an interest in improving or relocating 
one of its missions in the United States, the Office of Foreign 
Missions uses its ability to regulate the acquisition and the 
use of real property by foreign missions as a leverage to 
achieve the Department's own property-related needs in that 
country. Without OFM and its authorities under the Foreign 
Missions Act, we may not have been able to build a U.S. Embassy 
in Beijing or a new annex that is currently under construction 
there. This and more was achieved as a result of reciprocity 
and the Foreign Missions Act.
    In closing, Mr. Chairman, I am honored to have the 
opportunity to address you and the esteemed members of the 
committee. And if confirmed, I will do all that I can to 
further the important objectives that Congress has set out 
under the Foreign Missions Act. I look forward to continuing to 
work with you and to ensure the proper treatment of our foreign 
personnel serving abroad and, as importantly, the foreign 
missions that are here, that they continue to react as good 
neighbors.
    Thank you for the opportunity and your consideration for my 
nomination, and I respectfully ask that my full statement be 
entered into the record.
    Senator Perdue. Without objection, it certainly will.
    [The prepared statement of Mr. Smith follows:]

                 Prepared Statement of Gentry O. Smith

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee to be 
the next Director of the Office of Foreign Missions (OFM). I am 
profoundly grateful for the confidence the President and Secretary 
Kerry have demonstrated in nominating me for this unique and important 
position.
    My entire professional life has been dedicated to public service. 
Beginning with my first career as a police officer in Raleigh, NC, to 
my assignments at our Embassies in Tokyo, Rangoon, and Cairo, and to my 
most recent role as the Deputy Assistant Secretary for Countermeasures 
in the Bureau of Diplomatic Security, I have strived to improve the 
conditions in which my colleagues live and work. I believe my 
dedication and commitment in this regard will serve me well if given 
the opportunity to lead the Office of Foreign Missions, an organization 
whose primary goals are:

  <diamond> Using reciprocity to ensure equitable treatment for United 
        States diplomatic and consular missions abroad and their 
        personnel;
  <diamond> Regulating the activities of foreign missions in the United 
        States to protect our foreign policy and national security 
        interests;
  <diamond> Protecting the U.S. public from abuses of privileges and 
        immunities by members of the foreign missions; and
  <diamond> The provision of service and assistance to the foreign 
        mission community in the United States on a reciprocal basis.

    As you are aware, OFM was established in 1982 as a requirement of 
the Foreign Missions Act. In passing the act, Congress made it clear 
that the operations of foreign missions in the United States are a 
proper subject for the exercise of Federal jurisdiction.
    For more than 30 years, the act has guided the Department's 
management and extension to foreign missions in the United States, 
privileges and benefits associated with the acquisition and use of real 
property, motor vehicle and driving services, tax exemptions, customs 
clearances, and domestic travel courtesies and restrictions.
    In my estimation, the Foreign Missions Act is a landmark piece of 
legislation which has positively influenced and conditioned the 
environment in which U.S. diplomatic and consular missions abroad 
operate.
    This committee is well aware of the Department's ongoing efforts to 
ensure that our personnel abroad work in facilities that are safe, 
secure, and functional. I can authoritatively attest that the 
relocation of an American Embassy is a complex and challenging task. To 
accomplish this job, the United States must have the interest and 
support of the host government. In many countries, such support and 
assistance are there for the asking. In countries where support is 
lacking, OFM plays a critical role in assisting with the resolution of 
impasses we sometimes face with foreign governments during our attempts 
to acquire real property in their countries for the relocation and 
construction of our facilities.
    When a country has an interest in improving or relocating one of 
its missions in the United States, OFM uses its ability to regulate the 
acquisition and use of real property by foreign missions as leverage to 
achieve the Department's own property-related needs in that country. 
Without OFM and the authorities it has under the Foreign Missions Act, 
we may not have been able to build the new U.S. Embassy in Beijing, or 
the new annex building under construction there. This and more was 
achieved as a result of reciprocity and the Foreign Missions Act.
    In closing, Mr. Chairman, I am honored to have the opportunity to 
address you and the esteemed members of the committee. If confirmed, I 
will do all that I can to further the important objectives Congress set 
out in the Foreign Missions Act, and I look forward to continuing to 
work with you to ensure proper treatment of our Foreign Service 
personnel abroad, and that foreign missions are good neighbors here at 
home.
    Thank you for this opportunity and your consideration of my 
nomination. I respectfully request that my full statement be entered 
into the record, and I will be happy to answer your questions.

    Senator Perdue. Thank you, Mr. Smith.
    Mr. Adams.

         STATEMENT OF CHARLES C. ADAMS, JR., NOMINATED 
          TO BE AMBASSADOR TO THE REPUBLIC OF FINLAND

    Mr. Adams. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Kaine, it is a renewed pleasure to have the opportunity of 
appearing today before this committee. It is a tremendous honor 
to have been renominated by the President for this post, and I 
thank both the President and Secretary Kerry for the confidence 
that they have shown in me. If confirmed, I very much look 
forward to working with you and with your colleagues in 
Congress to further U.S. interests in Finland.
    Mr. Chairman, with your kind permission, I would like to 
say a few words--to repeat a few words actually that I said on 
a previous occasion with respect to the reasons why for me, if 
confirmed, the privilege of serving as an Ambassador of the 
United States has deep personal significance.
    My late father, Charles C. Adams, dedicated the entirety of 
his professional career to representing the United States as an 
officer of the Foreign Service, supported throughout by my late 
mother, Florence Schneider Adams. They, and what came over time 
to be a family of six children, spent many years in posts 
around the world with stints in between back home here in 
Washington, principally in Europe and Africa. And so I had the 
opportunity as a Foreign Service brat to witness firsthand from 
the perspective of a kid at the time the enormous skill and 
savvy and dedication and personal courage that my parents 
brought to their service to their country, as did also all of 
the other men and women of the Foreign Service with whom they 
were privileged to serve. And I saw also the burdens and the 
sacrifices that they were prepared to endure in serving their 
country.
    Now, after my own service in the Peace Corps in East Africa 
from 1968 to 1970, I chose to go into the private sector, and I 
spent more than 40 years in the practice of international law 
and policy at high levels. But throughout this time, I have 
always had very close to my heart the idea that as a salute to 
the memory of my mom and dad and to the magnificent men and 
women of the Foreign Service with whom they served that I, in 
turn, might some day be afforded the profound privilege of 
serving my country as an ambassador of the United States.
    And I have to say that in the 6 months of a holding 
pattern, in effect, since I last had the privilege of appearing 
before this committee, the sentiment on my part, far from 
having in any way been diluted or diminished, has in fact, been 
reinforced. And so I do thank you very much, indeed, for the 
opportunity of reappearing before this committee today.
    I am very excited that the President should have asked me 
to represent the United States in Finland. Finland is a very 
close partner of the United States. It has been a member of the 
European Union since 1995, has developed an innovation-led 
economy, has worked very closely with the United States as a 
partner in the Partnership for Peace of NATO, and has supported 
the United States in Afghanistan and elsewhere in promoting 
human rights and security around the globe.
    As to the matter of shared security, ever since 1950 
Finland has been a very dedicated participant in U.N. 
peacekeeping missions around the world, and although not a 
member of NATO, it is, as I have mentioned, a participant in 
NATO's Partnership for Peace program. And Finland maintains a 
very high level of cooperation and interoperability with the 
NATO alliance. It regularly participates in joint training 
missions with the United States and its allies, including joint 
air training later this very month with Sweden and Estonia and 
the United States Air Forces.
    And Finland is one of the largest contributors to the OSCE 
special monitoring mission in Ukraine with 19 observers on the 
ground currently and very substantial contributions as well to 
the observation force in respect of the Ukraine elections last 
year.
    The Finnish Government has also contributed troops to the 
Resolute Support mission in Afghanistan, has suffered 
fatalities, along with others of our allies, and it has pledged 
$1 billion a year from 2015 through 2017 in further support of 
the Afghan National Security Forces. Finland has also taken the 
lead on the implementation of U.N. Security Council Resolution 
1325 in respect of women's rights and participation of women in 
Afghan civil society.
    Secondly, the United States and Finland share the vision of 
a strong, robust transatlantic economy that delivers benefits 
for all of our citizens. That is why, if confirmed, one of my 
very top priorities will be increasing economic cooperation 
between our two countries through expanded bilateral trade and 
investment. The United States is currently Finland's fourth-
largest customer and sixth-largest supplier with bilateral 
trade valued in excess of $7 billion. I believe that we can do 
still more and enhance the position of the United States as a 
principal valued trading partner of Finland.
    I will work closely also with the Finns on the increasing 
importance of the Arctic region. As you know, the United States 
is about to take over, on April 25, the chairmanship of the 
Arctic Council, and the Finns will have the next succeeding 
chairmanship of the Arctic Council in 2018 to 2019.
    As to our shared values, the United States and Finland have 
a relationship which continues to thrive because of the strong 
people-to-people ties between our two nations. And these 
relationships are the lifeblood of our partnership. I can 
recall having had, as a college student at Dartmouth, a summer 
job as an escort interpreter with the Department of State, and 
I had the occasion to participate in the international visitors 
program as an interpreter with delegations from abroad. And it 
happens that Finland, in participating in these IVP programs 
over the years, now has as alumni many senior members of the 
Finnish Government, including President Niinisto, Prime 
Minister Stubb, and other important figures in Finland's 
Government who came to see the United States as young students 
at the time.
    Senator Perdue. I apologize for interrupting. Could we move 
to a conclusion so we can move this along? I apologize. I am 
trying to keep us on schedule here. Thank you.
    Mr. Adams. Well, I thank you for your attention.
    [The prepared statement of Mr. Adams follows:]

              Prepared Statement of Charles C. Adams, Jr.

    Mr. Chairman and honorable members of the committee, it is a 
privilege to appear before you today as the President's nominee to be 
Ambassador to the Republic of Finland. It is a tremendous honor to be 
asked to serve in this post, and I would like to thank President Obama 
and Secretary Kerry for their confidence in me. If confirmed, I look 
forward to working with you and your colleagues in Congress to further 
U.S. interests in Finland.
    With your kind permission, I would like to say a few words about my 
personal background and why this makes the privilege to serve as an 
ambassador so meaningful, if confirmed by the Senate.
    My late father, Charles C. Adams, dedicated the entirety of his 
professional career to representing the United States as a Foreign 
Service officer, supported throughout by my late mother, Florence 
Schneider Adams. They, and what came over time to be a family of six 
children, spent many years in posts all over the world, principally in 
Europe and Africa, between assignments back home here in the United 
States. I had the opportunity to witness at first hand, through the 
eyes of the ``Foreign Service brat'' that I was, the enormous skill, 
savvy, dedication, and courage that my parents, and all other 
professionals of the Foreign Service, brought to their service to their 
country, and the burdens and sacrifices they were prepared to endure.
    After service in the Peace Corps in East Africa in 1968-1970, I 
chose to enter the private sector, and have practiced international law 
and policy at high levels for now over 40 years. But I have always had 
close to my heart the idea that, as a salute to the memory of my mom 
and dad, and to the magnificent men and women of the Foreign Service 
with whom they served, I might someday be afforded the extraordinary 
privilege of serving my country as a United States Ambassador.
    My feelings in this regard have in no way diminished; rather they 
have intensified in the 6 months since having first shared these 
remarks with this distinguished committee.
    I am very excited that the President asked me to represent the 
United States in Finland. Finland is a close U.S. partner. It has been 
a member of the European Union since 1995, has developed an innovation-
led economy, engages closely with us as a NATO partner, including in 
Afghanistan, and leads in promoting human rights around the globe.
    Finland and its EU partners have stood with the U.S. in 
implementing sanctions against Russia, sharing our belief that Russia 
must be held accountable for its actions in Ukraine and abide by its 
commitments under the Minsk Agreement.
    Participation in multilateral fora is a core component of Finland's 
foreign policy and this is demonstrated through its partnership with 
the U.S. in international organizations like the United Nations and the 
Organization for Security and Cooperation in Europe.
    If confirmed, I will work to sustain and advance the strong U.S.-
Finland bilateral relationship. I will work to do so by championing 
U.S. national interests across three areas: our shared security, shared 
prosperity, and shared values.
    First, on our shared security: ever since the 1950s, Finland has 
been a dedicated participant in U.N. peacekeeping missions around the 
world. At the 2014 NATO summit in Wales, Finland became an Enhanced 
Partner of the alliance. Finland has been a participant in NATO's 
Partnership for Peace program for years and maintains a high level of 
cooperation and interoperability with the alliance. Finland regularly 
participates in joint training missions with the U.S. and our allies, 
including joint air training later this month, and is one of the 
largest contributors to the OSCE Special Monitoring Mission (SMM) in 
Ukraine, contributing 19 SMM observers.
    The Finnish Government has contributed troops to the Resolute 
Support Mission in Afghanistan, and has pledged $8 million per year 
from 2015 to 2017 in support for the Afghan National Security Forces. 
Finland has taken the lead on implementation of UNSCR 1325, the 
Resolution for Women, Peace and Security, which seeks to protect 
women's rights and participation in Afghan society.
    Finland also played a critical role in addressing the crisis in 
Syria through its participation in the mission to transport and destroy 
Syrian chemical weapons and in 2014 provided over $14 million in 
humanitarian assistance to the Syrian people.
    Finland has demonstrated a commitment to combating violent 
extremism in partnership with the United States, having implemented 
enhanced antiterrorism legislation in January and participating in the 
Foreign Terrorist Fighters Working Group.
    Second, the United States and Finland share the vision of a strong, 
robust transatlantic economy that delivers benefits for all our 
citizens. That is why, if confirmed, one of my top priorities will be 
increasing economic cooperation between our two countries, through 
expanded bilateral trade and investment.Finland strongly supports a 
Transatlantic Trade and Investment Partnership (T-TIP), which, if 
successfully negotiated, could further increase bilateral economic ties 
and strengthen the overall U.S.-EU economic relationship. I will also 
work closely with the Finns on the increasingly important Arctic 
region. Finland is eager to work with us on our upcoming chairmanship 
of the Arctic Council, and will take over the chairmanship after us in 
2017.
    Finally, on our shared values, the U.S.-Finnish relationship 
continues to thrive because of the strong people-to-people ties between 
our two nations. These relationships are the lifeblood of our 
partnership. If confirmed, I will travel throughout the country meeting 
with students, media, local officials and civil society listening to 
their priorities and concerns and speaking to the enduring value of our 
cooperation.
    Finland has played an active role in advancing our shared security, 
economic, and social values. If confirmed, I look forward to 
representing my country in advancing a still deeper connection between 
the United States and Finland.
    I am grateful for the opportunity to have addressed you today, and 
am at your disposal to answer any questions you may have. Thank you.

    Senator Perdue. No. They are very eloquent remarks. I 
apologize for closing that off.
    It must be easier the second time, guys. You did very well.
    As we said in the opening remarks, this is the second time 
you have been here. I appreciate your forbearance.
    I have a couple questions of my own here for the record, 
and then we will move to the ranking member, Senator Kaine, for 
his remarks and questions as well. I will try to be brief. I 
appreciate your forbearance today. And I am glad your mom is 
here, Mr. McGuire.
    Dr. McGuire. Thank you, sir.
    Senator Perdue. Mr. Haney, as Ambassador to Costa Rica, 
what would your top policy priorities be as you approach that 
country? It is one of the shining stars, as you said, in 
Central America, indeed Latin America. And what can we do to 
raise our cooperation together to the next level?
    Mr. Haney. Thank you, Mr. Chairman, for the question.
    I think the broad policy objectives that I would have in 
Costa Rica very much mirror--align with the broader objectives 
we have within Central America as they were recently outlined 
in the Strategy for U.S. Engagement in Central America.
    So specifically one would be promoting prosperity and 
economic integration from a regional perspective, enhancing 
security, as well as promoting improved governance. And I think 
Costa Rica can both benefit from our focus on these areas, as 
well as help us do some of the heavy lifting that we need in 
the region.
    So, for example, on the prosperity and regional 
integration, Costa Rica has done fairly well relatively. As you 
said, it is a shining star within the region and within Latin 
America. It is 40 percent of the trade of the CAFTA-DR, the 
free trade agreement within the region. But there are still 
other areas that they can take advantage of within this trade 
intraregionally, and to do that, they need to address things 
such as the high cost of power, as well as the transportation 
infrastructure and facilitating trade on an intraregional 
basis. I think that is an overlapping priority that we have 
with the Solis government and that is something that we could 
work on with them.
    As far as enhancing security goes, Costa Rica has done an 
excellent job. Coming from the private sector, I always look at 
return on investment. So what does the U.S. taxpayer get for 
the investment we are making in our partner countries? And 
Costa Rica, by far, has probably done one of the best jobs in 
the region on security cooperation. Last year, they seized more 
cocaine than any other country in Central America, and it was 
30 percent more than the previous year. In the last 4 years, it 
has continued to grow up. So I think we can continue to work on 
security with the Costa Ricans.
    And then I think very much and very importantly for Costa 
Rica and for the United States is that our relationship is at a 
different level now. It has matured to the point where we look 
at Costa Rica as an asymmetrical partner in helping us address 
some of the key issues in the region. And so I would hope to be 
able to help the Costa Ricans, perhaps do some of the 
initiative-building activity that they can do to take some of 
their experience in promoting human rights and democracy, 
education, as well as economic development and transport that 
to the rest of the region as well.
    Senator Perdue. Thank you.
    Mr. McGuire, what is your impression of the coordination 
between the World Bank and the regional development banks? More 
broadly, in light of the request of the general capital 
increases from these institutions, what do you see as the 
division of labor between these institutions, and how should 
Congress think about and prioritize those requests?
    Dr. McGuire. Sure. So on the first of those questions, the 
coordination there--it is ongoing. It is consistent. The World 
Bank, obviously, is considerably larger than the others, the 
African Development Bank, the Inter-American, the Asian 
Development Bank, the European Development Bank. And so there 
is always a discussion back and forth, and as many people have 
explained it to me, people often take the World Bank's lead. So 
the practices and the policies of the bank are quite 
consequential in terms of the practices of some of the others.
    Certainly, were I to be confirmed, I already know some of 
the other executive directors, at least the executive director 
at the Inter-American Development Bank. I know the woman who 
has been nominated for the African Development Bank. I 
certainly look forward to maintaining and strengthening those 
relationships and then making sure that staff are talking where 
and how it is appropriate as well. So that is the first piece.
    In terms of the division of labor, the World Bank has 
extraordinary expertise in any number of countries around the 
world. That said, one can always get even more expertise from 
those who are on the ground who are focusing just on a 
particular region. And so certainly I would expect for an 
intellectual exchange.
    In terms of projects themselves, I think that is a 
discussion that should be an ongoing one, and there are certain 
banks which have greater expertise in certain areas, let us 
say, on financial reform or education. The bank has a 
particularly strong team thinking about infrastructure and 
public health, and I think we ought to play to our strengths 
and make sure that we are not just overlapping all the time but 
that we are complementary in how projects fit with one another.
    And then there are instances where there are particular 
projects that are larger, perhaps a little riskier, where we 
actually do want to be alongside one another to spread out some 
of that risk and to make sure that we are really utilizing the 
U.S.'s contributions to all the banks most effectively.
    Senator Perdue. Thank you very much.
    Mr. Smith, what do you consider to be the OFM's highest 
priorities, and how do you perceive your potential role in 
achieving them. You have served in the State Department as 
Deputy Assistant Secretary and Assistant Director for 
Countermeasures in the Bureau of Diplomatic Security, since 
2009 I think.
    Mr. Smith. That is correct.
    Senator Perdue. How do you perceive your role in achieving 
those priorities?
    Mr. Smith. Senator, as I stated during my previous 
testimony here, my highest priority will be ensuring the 
equitable treatment of our personnel who serve in facilities 
abroad by the host governments under which they operate and 
also make sure that our national interests and foreign policy 
interests here in the United States are protected by regulating 
the activities of those foreign missions that are located here 
in the United States.
    How I will do that is by remaining engaged with the various 
regional bureaus at the State Department, along with their 
regional executive directors, who have day-to-day interaction 
with our embassies and consulates that are around the world to 
make sure that any issues that come up that we can address from 
a perspective of reciprocity that we can do that.
    I will also, of course, stay in close contact with the 
Under Secretary for Management and the chiefs of missions at 
those embassies so that if I personally have to be engaged in 
any of those activities to bring about resolution, that I can 
do that as well.
    And as I stated during my last testimony, of course, I will 
remain engaged with the Congress, with the members here, and 
with your committees if there are specific issues of interest 
that we can resolve as well.
    Senator Perdue. Great. Thank you.
    My time has expired. In the second round, I have one more 
question for Mr. Adams, but the ranking member--we are going to 
waive the time constraint on this since he has not had a chance 
for his opening remarks.
    So, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. And thanks to all the 
witnesses.
    I have voted for you once already. So I am not going to ask 
questions and make you think I am trying to satisfy myself of 
whether I made a mistake or not. I very much support you. I 
congratulate you on the renomination.
    I also want to say, Mr. Adams, your story about your own 
family's personal history is a very touching one. But it really 
does call to mind the tremendous sacrifice that our Foreign 
Service professionals make. The three of you, I guess, will 
have the title of Ambassador, and then, Mr. McGuire, you will 
be Executive Director. But you are all Ambassadors, but you 
also will be working with some fantastic small A ambassadors.
    As I travel to do CODEL's as part of this committee, when I 
am in another country, I almost always will meet with first- 
and second-tour Foreign Service officers, the newcomers to the 
State Department family to ask them about their lives and their 
perceptions and to answer their questions. I always come back--
Senator Cornyn and I were in Latin America 3 weeks ago. I 
always come back with a high degree of real inspiration for the 
service. I think we do a good job of thanking our military who 
serve in harm's way these days, but an awful lot of our 
nonmilitary personnel who serve overseas who get sent to places 
that may not be their first choice, sometimes to places where 
they cannot bring family, sometimes to places where there is 
physical danger--it is really important work. And so you will 
be working with wonderful colleagues, and I know that you will 
express that appreciation to them every day that you serve.
    To just maybe go left to right, Mr. Adams, I want to ask 
you about--we had a hearing this morning about Russia and the 
Ukraine. We have had a lot of hearings about Russia in the 
months since you were here and about what is happening. Talk a 
little bit about the Finland-Russia relationship now and, in 
particular, whether the sanctions that the United States and 
NATO have imposed on Russia are having an effect on the economy 
of Finland.
    Mr. Adams. Thank you, Senator. Let me address the second 
part of your question first, if I may.
    Finland, as you know, is a very strong proponent of the 
sanctions regime against Russia and has implemented those 
sanctions forcefully. Even though, inasmuch as Finland has a 
very active trading relationship with Russia, it is Finland 
which, among the EU countries, has probably paid the highest 
price in terms of the impact on its economy. Finland's exports 
to Russia in 2014 were down by 13 percent in respect of 2013, 
largely as a result of the direct sanctions and of the reduced 
value of the ruble which impeded Russian purchasing power in 
respect to Finnish goods and services. Finland has stepped up 
and has made it clear that it is prepared not only to enforce 
existing sanctions but to advocate for enhanced and stronger 
sanctions to the extent that the crisis in Ukraine is not 
rapidly brought to a satisfactory close.
    The relationship between Finland and Russia is ancestral. 
As you know, Finland spent over a century as a grand duchy of 
the czar of Russia from 1809 to December 6th of 1917. There had 
been dealings before. There have been dealings after, including 
armed conflict, as you know. In the course of the Second World 
War, Finland on two separate occasions staved off the assaults 
of the Red Army, incurring the admiration of the world in so 
doing.
    It is a delicate relationship. Finland is very firmly 
anchored with the West in terms of its values, in terms of its 
liberal political system, its democracy, in terms of also of 
its sense of oneness with its neighbors to the west and to the 
south, even as Finland has sought to maintain a relationship 
with Russia that is based on shared respect and a concern for 
good neighborly proximity, and Finland has succeeded admirably 
in so doing.
    The crisis in the Ukraine has brought focus on Finland as 
an interlocutor and bearer of messages to Russia which are 
heeded and paid close attention to by Russia because of the 
privileged posture of Finland and the respect with which 
Finland is held by Russia due to this relationship of several 
centuries standing. And if confirmed, I would look forward to 
working closely with the Finnish Government in continuing to 
strive for a satisfactory and prompt resolution of the crisis 
in Ukraine to which Finland is uniquely positioned to 
contribute.
    Senator Kaine. Thank you very much, Mr. Adams.
    Mr. Smith, the issue of the reciprocal treatment of U.S. 
Embassy and consular personnel in nations where they serve and 
then our treatment of their personnel here--there have been 
some newsworthy instances in the last couple years, most 
notably in some back and forth between the United States and 
India with respect to treatment of Indian Embassy and consular 
personnel in New York and then actions taken in India that 
challenged some of the rights of our Embassy personnel.
    But one that is ongoing right now that I am just kind of 
curious about--I just returned from Latin America with Senator 
Cornyn, and when we were in Colombia, there was an escalating 
tension with the neighboring country of Venezuela. And my 
understanding is that Venezuela has sort of directed us to 
reduce our number of Embassy and consular personnel from--I do 
not know--about 100 down to 17. There are about 80 Venezuelan 
consular personnel in the United States. I am just curious if 
you have any insight that you can share in an opening setting 
as to how we are trying to work through that particular 
challenge to the credentials to our Embassy and consular 
personnel in Venezuela.
    Mr. Smith. Well, as you stated, Senator, as much as we can 
talk about it in open session, which is rather limited, but I 
agree with you. We got the number that we needed to reduce down 
to 17. We are looking at the situation now because, as you 
stated, there are more than 17 diplomats from Venezuela that 
are currently operating in the United States. And so we will 
continue in negotiations and discussions with the Government of 
Venezuela to come to a much more honest recognition of how many 
personnel they have here and hopefully be able to respond in a 
reciprocal way so that we can keep our numbers pretty much 
equal to what their numbers are. So it is still a situation 
that is developing. It is one that is still very much under 
study with the Department and one in which we remain engaged 
with the Venezuelans on this particular issue.
    Senator Kaine. Great. Thank you, Mr. Smith, for that.
    Mr. McGuire, I want to ask you about the activities of the 
IBRD in the Americas. The President currently has a budget 
proposal in that is Plan Central America. It is with respect to 
the Northern Triangle countries in Central America, Honduras, 
Guatemala, and El Salvador. The dramatic escalation in the 
number of unaccompanied minors coming to the United States, an 
average of about 20,000 to 35,000 in 2013, nearly 70,000 in 
2014, drew a lot of attention to these three countries that 
have three of the worst murder rates in the world, huge amounts 
of poverty. And the President's proposal deals with kind of an 
all-encompassing strategy to help them deal with security 
challenges, fight narcotrafficking, and also do the kind of 
economic development and justice reforms that will enable the 
people to want to stay rather than to have to leave their 
countries due to poverty and violence.
    Talk a little bit about the IBRD kind of portfolio. It 
looks to be about a third of activity is in the Americas. How 
can the IBRD be an asset to this need to hopefully upgrade the 
security and economic situation in Central America so we do not 
see the push of unaccompanied minors coming to our country.
    Dr. McGuire. Sure. I appreciate it. And I was actually in 
Colombia just last summer on a trade mission with the Commerce 
Department, and so I thought about a number of these issues 
from a regional perspective myself recently.
    I would say the first place I would start is importantly to 
your point, realizing that there is an all-in strategy here in 
the sense that on certain matters it will be the State 
Department which is able to take the lead and help the Northern 
Triangle countries in particular. In certain instances, it is 
USAID on the bilateral side. It is worth noting that 11 of the 
21 countries with which the United States has free trade 
agreements are in this hemisphere. All three of the Northern 
Triangle countries we have free trade agreements with. So there 
is an existing strong base there for increasing commerce, which 
leads to increasing stability.
    That is really the part and parcel of what the World Bank 
is about, is stabilizing economies, growing economies so that a 
lot of other problems often can fade away so long as you are 
paying attention to them a little more directly like security 
and some of the things that you are addressing. So I think that 
is important to realize. There is a larger context here and 
this is an ongoing set of challenges that we are dealing with.
    In terms of the IBRD, you are right. I believe it is closer 
to a quarter of the overall portfolio is within Latin America. 
So that is pretty significant. I would note that the two large 
economies within the region, the largest, Brazil and Mexico, 
are number one and number two in terms of total portfolio 
exposure, if you will, at the bank. So there is consistent and 
ongoing work. And I think the challenge for the bank is to 
continue to look at where it can have the greatest impact.
    One example I will use--and please take it not as a 
recommendation to bank staff where they ought to go. But when I 
was in Colombia, one of the things I heard an awful lot about 
is the great potential that the eastern region had for 
developing agriculture. It is very fertile land. One of the big 
challenges that they have is, should that be fully developed, 
there are not enough roads and rail to get to market in the 
more densely populated regions to the west but also for export. 
And so these sorts of infrastructure projects could be 
something that would make a difference. Again, I am not making 
recommendations but saying these are the kind of things that 
the bank and its expert staff continue looking at to say how do 
we grow the economy, how do we diversify the economy, how do we 
give people multiple options so perhaps they are not drawn into 
some of the other activities that are going on down there.
    And then finally, I would say, getting back to my original 
point, it is working in conjunction with all the other U.S. 
Government entities to make sure that we are working hand in 
hand and not at cross purposes so we can be most effective in 
trying to stabilize the region and help it to continue to grow.
    Senator Perdue. Thank you, Mr. McGuire.
    And finally, Mr. Haney, I want to congratulate you. On this 
CODEL I was talking about, we spent about 35 minutes in the 
airport in Costa Rica, and the mere knowledge that we were 
there caused Embassy officials to drive and meet with us in our 
layover and ask us penetrating questions about when Fitz Haney 
was going to be confirmed by the Senate of the United States. 
And I thought if they drove all the way out to the airport 
about an hour from downtown knowing we would have 5 minutes to 
talk on your behalf, that speaks well for the team that you 
will be working with.
    Costa Rica, a fascinating country; 120,000 American 
citizens, approximately, live there and more than 1 million 
Americans visit Costa Rica every year.
    As we are grappling with some of the issues I asked Mr. 
McGuire about some of the security challenges in Central 
America, really two things. What can we do to help Costa Rica 
share some of its expertise, civil justice system, for example, 
in Honduras--I am very familiar with Honduras, having lived 
there. One out of 100 murders leads to a conviction. So there 
is almost complete impunity for the most serious crime there 
is, and that means people do not cooperate with the courts or 
police. Why be a witness? Why tell somebody what you saw if 
there is not going to be a conviction anyway? And that is a 
fairly common thing in Honduras, El Salvador, Guatemala. Costa 
Rica has a different tradition. I am interested in what you 
might be able to do to help sort of share that tradition in the 
region because of the cultural similarities.
    But also, I am curious. Is Costa Rica seeing any up-tick in 
criminal activity? There is a little bit of a squeezing the 
balloon phenomenon. The better we do in Colombia, the more we 
push some criminal activity elsewhere. When we invest in Plan 
Merida in Mexico, we push some criminal activity elsewhere. Is 
Costa Rica seeing any escalation, especially in narcotraffic, 
and what might the United States do to help them deal with that 
issue?
    Mr. Haney. Thank you, Senator. And thanks to the team in 
Embassy San Jose who drove out to advocate on my behalf. I hope 
to be down there soon.
    Let me start with the second part of your question. I do 
think that is the importance of the entire approach, both from 
the U.S. Government perspective, as well as the strategic 
perspective that we have to address this on a regional basis. 
Because of the success we have had in Colombia and success we 
have had in Mexico, being a business person, my belief is that 
as people develop distribution channels, they are going to ship 
through whatever they think they can make money on. And so the 
countries in the middle, so all of Central America, have been 
squeezed and have all experienced an up-tick or increase in 
violence. And Costa Rica has not been spared that up-tick. Last 
year, the murder rate went back up in Costa Rica, and it was 
most directly related to narcotrafficking.
    So I think the fact that the country has, like I said, 
seized more drugs last year than any other country in the 
region--and that was a 30-percent increase over the previous 
year, and it has been 4 years in a row--tells, I think, one of 
two things. One is that the Costa Ricans are a very willing and 
capable partner, and we need to continue to partner with them 
on initiatives around security. And two, probably other 
countries are not doing as well as they should do if Costa Rica 
is number one in this. So I think they are exposed, and we can 
do everything we can to continue to support their democratic 
institutions so that they cannot become as tainted or as 
fragile as the Northern Triangle institutions are.
    Now, what can Costa Rica do? I do think that Costa Rica, 
given its strong traditions and given its relative success on 
democracy and human rights, can serve to help institution-build 
within the region. And so I think our engagement--you know, we 
have not had an ambassador in Costa Rica now for almost 2 
years, and I think our high-level engagement with the 
Government of Costa Rica will help them really to move to the 
next level. It is a natural impulse, I think, of the Solis 
government. President Solis has said that Costa Rica cannot 
prosper if the rest of the region is not prospering as well. 
And I think that is a shift in mindset that the Costa Ricans 
have come to as of late, but I think that we need to do 
everything we can to help them continue on that path.
    And so one of my priorities will be engaging both the Costa 
Rican Government, as well as broader civil society really, 
because Costa Rica has a very deep and broad civil society, and 
see how can we bring training and other things, from a judicial 
standpoint, some of the things that we have helped, actually 
Costa Rica with, through some of the CARSI funding we have done 
over the last 5 years to really export that expertise to the 
Northern Triangle to really help and help the Costa Ricans 
continue to realize that helping the Northern Triangle is 
actually helping them as well.
    Senator Kaine. Thank you, Mr. Chair. I have no further 
questions, and thanks to all the witnesses.
    Senator Perdue. Thank you.
    I just have a quick question, Mr. Adams, for the record. As 
you think about taking on this responsibility--and let me echo 
the ranking member's comment about your story. That is very 
touching.
    As you think about, though, taking on this responsibility, 
how do you see the priorities? What will be your main focus as 
you take on this responsibility?
    Mr. Adams. Senator Perdue, I think that the first priority 
for any United States Ambassador has to be the safety and the 
security of embassy personnel and of U.S. citizens at large in 
the particular country. And certainly this is something that, 
if confirmed, I will have foremost in my mind every day of my 
service in Finland.
    Second, there is the matter that Senator Kaine addressed 
just now, the resolution of the crisis in Ukraine and the role 
that can be played by Finland in a constructive sense, working 
with the United States and with the European Union to 
communicate to the Russians the absolute necessity of finding a 
satisfactory resolution to this crisis quickly in order that 
the sanctions regime can gradually be diminished rather than 
strengthened still further.
    Thirdly is the matter of the expansion of the bilateral 
trade relationship between Finland and the United States where, 
as I indicated, I believe that the United States can move up in 
the rankings both as a customer of Finland and as a supplier of 
goods and services to that country.
    Senator Perdue. Thank you very much.
    Gentlemen, thank you for your comments today and for your 
forbearance and for being here today. Your testimony is in the 
record, and I am very impressed.
    Just so you know, we are going to keep the record open in 
case Senator Gardner or any other members of the committee have 
any last-minute questions. I do not know that there will be 
any. But we ask that you respond to those if you get those in 
the next few days.
    Again, I really want to thank you for your willingness to 
serve our country. I am very encouraged when I meet high-
quality people with backgrounds like yours willing to serve. So 
thank you very much.
    With the thanks of this committee, unless the ranking 
member has anything else, we will stand adjourned. Thank you 
very much.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


    Responses of Matthew T. McGuire, Nominated to be U.S. Executive 
Director of the International Bank for Reconstruction and Development, 
              to a Questions from Members of the Committee

                director-designate mcguire's responses 
                   to a question from senator corker
    Question. The World Bank Board in the next few months will be 
reviewing staff recommendations to improve the procurement practices of 
the Bank. While a number of very positive steps are being proposed, it 
is my understanding that, currently, the staff does not appear to be 
planning to propose changes to the bid price preference margins that 
are granted to domestic bidders on bank projects (15 percent preference 
on goods and 7.5 percent on works). Such preferences raise questions 
about compatibility with efficient procurement and fair bid 
competition. In fact, the impact of this practice can affect issues 
that go beyond Bank procurement. For example, the Bank's policy 
sometimes serves as an imprimatur for many developing countries to 
follow this practice in their own procurement, all of which is to the 
detriment of U.S. based bidders.

  <diamond> If confirmed, will you press for a prompt and serious 
        review of this practice?

    Answer. Yes.

                               __________
                director-designate mcguire's responses 
                   to questions from senator barrasso
    Question. I appreciate that in your testimony, you committed to 
``be a sound steward of our country's capital at the Bank.'' It is 
critically important that U.S. resources are used in a responsible and 
effective manner.

  <diamond> Do you believe requiring borrowers to accept higher cost 
        energy projects is a responsible use of taxpayer dollars when 
        affordable and reliable alternatives are readily available?

    Answer. The World Bank should support expansion of low-cost, 
reliable energy access in developing countries, and should do so taking 
into account full lifecycle costs, including environmental and social 
costs. In some instances, this may lead to higher costs up front, but 
should not lead to higher costs for the life of the project. The World 
Bank has an important role to play in increasing the commercial 
viability and promoting the expansion of renewable, clean, and 
efficient energy sources and technologies.

    Question. If confirmed, what criteria would you use to determine 
whether you will vote in support of energy development projects at the 
World Bank?

    Answer. As I evaluate energy projects, I will look to see that the 
project meets the country's energy needs, has considered all relevant 
alternative approaches, and is as sustainable (both financially and 
environmentally) as possible. Of course, there are a variety of issues 
to consider in any project, including existing laws and policies, and 
these will apply to energy projects as well.

    Question. Will you vote in support of energy development projects 
that include oil, coal, and natural gas at the World Bank?

    Answer. I will vote in favor of projects that are consistent with 
U.S. law and policies and the World Bank's own operating guidelines. 
Consistent with its own Energy Sector Directions Paper, the World Bank 
should work to increase the commercial viability and promote the 
expansion of renewable, clean, and efficient energy sources and 
technologies. Global energy needs are vast, and there are instances 
where fossil fuels like gas and oil can play a role in the transition 
to such sources. Both the administration's Climate Action Plan and the 
World Bank's Energy Sector Directions Paper recognize the important 
bridging role that natural gas can have in moving toward more 
sustainable sources of energy supply.

    Question. What are the current energy policies, rules, and 
restrictions at the World Bank that impact financing of energy 
development projects dealing with fossil fuels?

    Answer. In July 2013, the World Bank adopted a new approach to its 
engagement in the energy sector. The approach recognizes the importance 
of increasing access to modern energy services through an integrated 
approach that addresses both energy supply and demand issues, including 
energy efficiency, tariff pricing, and reducing technical losses. The 
approach notes that the World Bank Group will ``only in rare 
circumstances'' support new greenfield coal power generation projects, 
such as meeting basic energy needs in countries with no feasible 
alternatives. The paper also says that the World Bank will scale up its 
work helping countries develop national and regional markets for 
natural gas.

    Question. The World Bank approved a total of $1.6 billion in new 
projects in China through its nonconcessional window in fiscal year 
2014. In fiscal year 2014, China was the third-largest recipient of 
financial assistance from International Bank for Reconstruction and 
Development, after Brazil and India. In 2014, China participated in the 
creation of two separate development banks called the Asian 
Infrastructure Investment Bank and the New Development Bank.

  <diamond> Why is the World Bank continuing to lend substantial 
        resources to China, when China can more than meet their 
        financing needs in the international capital market and started 
        creating their own international lending institutions?

    Answer. China's per capita income ($6,550) remains below the 
threshold ($7,185) at which point World Bank management is supposed to 
initiate discussions about graduation.
    If confirmed, I will encourage the World Bank to begin discussions 
to transition China away from World Bank lending as it crosses the 
graduation threshold and to move toward other vehicles, such as 
reimbursable technical assistance and analytical and advisory 
assistance, to meet its development needs.

    Question. What is your view of the Asian Infrastructure Investment 
Bank and the New Development Bank? What kind of duplication will these 
new development banks have with existing multilateral and regional 
institutions?

    Answer. I believe that there is a pressing need to enhance 
infrastructure investment around the world and that any new 
institutions should be designed to complement the existing 
institutions. I also believe that any new multilateral institution 
should incorporate the high standards that the international community 
has collectively built at the World Bank and the regional development 
banks.

    Question. Do you believe that lending substantial resources to 
dynamic emerging market economies with access to international capital 
markets diverts capital away from countries with greater needs and lack 
of financial options?

    Answer. No. The World Bank's sovereign lending is split between two 
different windows specifically to address this issue. Countries with 
greater needs and a lack of financial options receive concessional 
financing (grants or highly concessional loans) through the World 
Bank's concessional window--the International Development Association 
(IDA). As a country's per capita income increases and it gains access 
to international credit markets, it graduates from IDA to the World 
Bank's nonconcessional window--the International Bank for 
Reconstruction and Development (IBRD).
    The allocation of the IBRD's financial resources depends on a 
variety of factors, including the size of the borrower's population, 
economy, and its credit ratings. This method of allocating resources 
helps the IBRD to maintain its AAA credit rating and limits the need 
for frequent infusions of capital by its shareholders. Given differing 
credit profiles, reducing lending to upper middle-income countries will 
not result in a dollar-for-dollar increase in capital available for 
IBRD lending to lower middle-income countries. The IBRD must be able to 
provide adequate resources to lower middle-income countries as they 
graduate from IDA, but the IBRD has taken a number of steps to ensure 
that it has adequate capital resources to do so over the medium-term.

    Question. What specific policies do you propose for graduating 
middle-income countries at the World Bank?

    Answer. If confirmed, I will continue to urge World Bank management 
to apply the World Bank's existing graduation policy in a more 
consistent fashion. According to World Bank policy, countries remain 
eligible to borrow from the IBRD until they are able to sustain long-
term development without further recourse to World Bank financing and 
until they have reached a sufficiently advanced level of development. 
The World Bank uses a per capita income threshold (currently $7,185) as 
a trigger for discussions on graduation. I believe that the World Bank 
should be having serious discussions with more borrowers about 
graduation. As countries approach the threshold for graduation, I will 
also encourage the World Bank to be more selective about which sectors 
it supports in those countries, with a focus on those that have the 
greatest impact on poverty reduction and have a global or regional 
public good aspect associated with them.

 Responses of Charles C. Adams, Jr., Nominated to be Ambassador to the 
    Republic of Finland, to Questions from Members of the Committee

                ambassador-designate adams's responses 
                   to questions from senator shaheen
    Question. If confirmed as the next Ambassador to the Republic of 
Finland, will you commit to making the issue of gender equality and the 
particular challenge in Finland of gender-based violence a priority for 
this bilateral relationship?

    Answer. If confirmed as the next Ambassador to the Republic of 
Finland, I commit to continuing our efforts to enhance human rights, 
including with regard to gender equality. With the use of important 
tools such as the annual Human Rights Report, and with the assistance 
of the State Department's Office of Global Women's Issues, I will 
continue to partner with Finland on eliminating gender inequality 
globally as well as engage with Finland on addressing gender-based 
violence at home. I am encouraged by our ongoing partnership with 
Finland, which has been the lead on U.N. Security Council Resolution 
1325 implementation in Afghanistan. In this role, Finland has helped 
promote the importance of women in peace and security. The Finnish 
Government has also recognized the problem of gender-based violence 
domestically and adopted a 5-year, multisectoral action plan to combat 
violence against women. In addition, Finland recently passed 
legislation, effective January 1, 2015, outlining the government's 
assistance to and responsibility for safe houses and shelters for 
victims of domestic violence. If confirmed, my team and I will continue 
to support efforts to address the problem of gender-based violence.

                               __________



                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Paul A. Folmsbee, of Oklahoma, to be Ambassador of the United 
        States of America to the Republic of Mali
Mary Catherine Phee, of Illinois, to be Ambassador of the 
        United States of America to the Republic of South Sudan
Cassandra Q. Butts, of the District of Columbia, to be 
        Ambassador of the United States of America to the 
        Commonwealth of the Bahamas
Katherine Simonds Dhanani, of Florida, to be Ambassador of the 
        United States of America to the Federal Republic of 
        Somalia
                              ----------                              

    The committee met, pursuant to notice, at 2:16 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
presiding.
    Present: Senators Flake and Markey.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. The Senate Foreign Relations Committee will 
come to order. I would like to welcome all of you here, both 
the nominees and family members.
    We have talked and been able to meet all of you in my 
office. Thank you for coming by.
    As you know, I have long had an interest in Africa, having 
spent some time there. Last week, Ed and I presided over a 
hearing, a subcommittee hearing examining the economic policies 
or the promises that exist on the continent, particularly after 
the summit we had, the Leader summit last August. That was our 
first hearing in the Congress, and we will have many more.
    But today, we are going to hear from nominees to Mali, 
South Sudan, and Somalia, and we will look at some of sub-
Saharan Africa's most serious challenges. We also have the 
nominee for the Bahamas as well. I am grateful that she is 
here.
    After seeing positive developments in 2013, Mali's security 
and governance climate has continued to deteriorate. And 
despite international pressure and ongoing mediation efforts, 
the conflict of South Sudan has continued for over a year, 
costing more than 10,000 lives, displacing more than 2 million 
people, causing millions more to require humanitarian 
assistance.
    The administration's decision to nominate an Ambassador in 
Somalia offers at least a glimmer of hope for movement on the 
security and governance front. I look forward to hearing more 
about the potential for progress, as well as the hurdles that 
exist, when we establish a presence in Mogadishu.
    We are also considering a nominee, as I mentioned, for the 
Bahamas. It is an important regional neighbor, and I look 
forward to thoughts on economic progress and partnership with 
us here.
    Thank you all for your time and for your expertise. I look 
forward to your testimony.
    With that, I recognize Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, so much, and I 
very much appreciate you holding this very important hearing.
    Three of the nominees that we are going to be talking 
about, and to, today, and hoping to be confirmed as U.S. 
Ambassadors, are looking at three of the most challenging 
countries in sub-Saharan Government: Mali, South Sudan, and 
Somalia. The fourth is seeking confirmation to the Bahamas, a 
place that most likely conjures up thoughts of vacation, but in 
truth it is a critical country on the United States third 
border in the Caribbean.
    All four of our nominees have distinguished records of 
public service that will continue as U.S. Ambassadors when they 
are confirmed.
    And I thank you, Mr. Chairman, for having this hearing.
    Senator Flake. Thank you, Senator Markey. Our first nominee 
is Paul Folmsbee. Mr. Folmsbee is a career member of the Senior 
Foreign Service. He currently serves as executive director of 
the State Department's Bureau of African Affairs. Previously, 
Mr. Folmsbee served in a number of challenging assignments, 
including senior civilian representative for the Regional 
Command East Afghanistan; principal officer at the U.S. 
consulate in Mumbai, India; the Provincial Reconstruction team 
leader in Baghdad; and the director of international narcotics 
in law enforcement affairs at our Embassy in Pakistan.
    Mr. Folsmbee has also served in a number of Africa 
assignments, including Gabon, Tanzania, Kenya. Mr. Folmsbee 
earned a B.A. in political science from Tabor College in 
Hillsboro, Kansas, and an M.A. in social anthropology from the 
University of Oklahoma in Norman, OK.
    Our second nominee is Mary Catherine Phee. Ms. Phee is a 
career member of the Senior Foreign Service, currently serves 
as chief of staff in the Office of the Special Envoy for Sudan 
and South Sudan. From 2011 to 2014, Ms. Phee served as deputy 
chief of staff in Ethiopia. She was previously director for 
Iraq at the National Security Council, the regional affairs 
coordinator at the U.S. Embassy in Rome, and counselor for 
political affairs at the U.S. mission at the U.N. in New York.
    Ms. Phee has held multiple positions focusing on Iraq and 
other countries in the Middle East. And before joining the 
Foreign Service, Ms. Phee also worked at Development 
Alternatives, a Bethesda, MD, company, and as deputy press 
secretary for Senator Daniel Patrick Moynihan. Ms. Phee earned 
a B.A. at Indiana University and a master's degree from the 
Fletcher School of Law and Diplomacy.
    Our third nominee is Cassandra Butts. Ms. Butts is 
currently a senior adviser to the CEO at the Millennium 
Challenge Corporation. Previously, she served at the White 
House as deputy counsel to the President, general counsel in 
the Office of the President Elect, and general counsel for the 
Obama transition project. Prior to these nominations, Ms. Butts 
was the senior vice president for domestic policy at the Center 
for American Progress, and counsel and policy director for 
Representative Richard Gephardt in the United States House of 
Representatives.
    She earned a B.A. from the University of North Carolina at 
Chapel Hill, NC, and a J.D. from Harvard Law School.
    Our fourth nominee is Katherine Simonds Dhanani. Ms. 
Dhanani is a career Foreign Service officer and currently 
serves as director of the Office of Regional and Security 
Affairs in the State Department's Bureau of African Affairs. 
Previously, Ms. Dhanani served as consul general at the U.S. 
consulate in India. She has held numerous assignments in 
Africa, including deputy chief of mission at the U.S. Embassy 
in Harare, Zimbabwe, and at the U.S. Embassy in Gabon. Prior to 
Gabon, she was political and economic section chief at the U.S. 
Embassy in Zambia, and economic section chief in the DRC.
    Ms. Dhanani earned a B.A. from Kenyon College in Gambier, 
OH, and an M.A. from MIT.
    So thank you all for being here. Thank you for sharing your 
thoughts and viewpoints. I am sure you will want to introduce 
family members as well, and we appreciate them for the 
sacrifice that they make as well as you serve.
    We would appreciate it if you could keep your testimony to 
about 5 minutes, and then we can have time for questions to be 
asked.
    So we will recognize Mr. Folmsbee first, and thank you 
again for being here.

           STATEMENT OF PAUL A. FOLMSBEE, NOMINATED 
            TO BE AMBASSADOR TO THE REPUBLIC OF MALI

    Mr. Folmsbee. Thank you, Mr. Chairman, Ranking Member 
Markey, and distinguished members of the committee. I am 
honored to come before you as President Obama's nominee to be 
the next United States Ambassador to Mali. I deeply appreciate 
the confidence and trust the President and Secretary of State 
have shown in nominating me for this position.
    I am supported here today by my friends and colleagues from 
the State Department's Bureau of African Affairs, as well as my 
friends from USAID. In fact, my former PRT deputy leader from 
Baghdad is actually sitting behind me, Jeff Bakken. He is a 
good man.
    My wife, Angie Chin, is also a U.S. diplomat and is 
probably watching us from Bangkok, Thailand, right about now. 
Unfortunately, she could not be here today.
    My career in the Foreign Service began in 1987 and has led 
to me to assignments all over the world. The bulk of my 
assignments have been in developing countries, including Kenya, 
Haiti, Gabon, and Tanzania. In Iraq in 2007, I embedded with 
the 2/82nd Airborne, and ran a Provincial Reconstruction Team 
in Sadr City and Adhamiyah in downtown Baghdad. In Afghanistan 
in 2011, I embedded with the 1st Cavalry as a senior civilian 
rep for Regional Command East, where we worked on expanding 
governance and economic development programs.
    If confirmed, I would draw upon these experiences and many 
others to deepen U.S.-Mali ties, as we continue to work toward 
our mutual goals of combating extremism, strengthening 
democratic governance, and fostering inclusive economic growth.
    Mali continues to emerge from the most serious security, 
political, and development crisis it has faced since 
independence. It is rebuilding its social, economic, and 
governance institutions following the March 2012 coup d'etat 
and subsequent takeover of parts of northern Mali by 
extremists.
    Poverty both exacerbates Mali's conflicts and underscores 
its capacity challenges. Mali is ranked 176th of the 187 
nations in the United Nations 2014 Human Development Index. In 
addition, the recent coup and the events that followed revealed 
the fragility of Mali's government institutions.
    Despite these challenges, Mali peacefully elected a 
President and National Assembly in 2013. The new government has 
made national reconciliation a top priority, and donors are now 
engaging with the country. It is within this context U.S. 
engagement will be critical as we foster democratic values, 
promote good governance, and engender peace and security.
    U.S. assistance programs will continue to increase access 
to education and health services, improve nutrition and 
sanitation, strengthen Malian food security, and facilitate 
inclusive economic growth. One of the key strategies for 
deepening economic growth is expanding the resiliency of poor 
communities so they will not be vulnerable to the shocks of 
extreme weather and conflict.
    Security and stability remain a major challenge. The United 
Nations Multidimensional Integrated Stabilization Mission, 
which is quite a mouthful, we call it MINUSMA, was established 
by the Security Council Resolution 2100 in April of 2013 to 
support the stabilization of the country and to carry out a 
number of security-related tasks.
    Our government continues to fully support that effort by 
providing training, equipment, and intelligence. The success of 
this mission is critical to the long-term stability of the 
country.
    Another key objective is to aid in the reformation of the 
Malian security sector by supporting institutions that can 
manage internal and external security threats, contribute to 
national and regional stability while adhering to civilian 
authority and respect international law and human rights norms.
    While there are a number of areas in the security sector 
that require investment, the near-to-medium-term priority for 
U.S. assistance are those activities that will refine the 
national strategy, repair civilian-military relations, improve 
access to justice in the north, and encourage the legislature 
and civil society stakeholders to hold security services 
accountable.
    The government has engaged in internationally supported 
efforts to advance peace talks with the northern armed groups. 
These talks are ongoing, and their positive outcome is far from 
ensured.
    The U.S. Government will continue to participate in these 
negotiations as an observer and will also continue to look for 
opportunities to support a balanced and peaceful way forward.
    The outbreak of the Ebola virus in West Africa, and the 
threat it represented to Mali, punctuated the need for urgent 
cooperation on health matters. Early containment of the 
outbreak was a major priority for the Government of Mali, 
international partners, and the United States. Fortunately, the 
threat was successfully contained, aided in part by direct U.S. 
assistance from the State Department, the National Institutes 
of Health, CDC, and USAID.
    Mr. Chairman and members of the committee, if confirmed, I 
will look to you for counsel and support to ensure that our 
bilateral relationship remains firmly rooted in our shared 
vision of a democratic and prosperous Mali.
    Thank you for inviting me to appear before you today. I 
would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Folmsbee follows:]

                 Prepared Statement of Paul A. Folmsbee

    Mr. Chairman, Ranking Member Markey, and distinguished members of 
the committee, I am honored to come before you as President Obama's 
nominee to be the next United States Ambassador to Mali. I deeply 
appreciate the confidence and trust the President and Secretary of 
State have shown in nominating me for this position.
    I am supported here today by my friends and colleagues from the 
State Department's Bureau of African Affairs and USAID. My wife 
Angelika Chin is also a U.S. diplomat and is serving at our Embassy in 
Bangkok, Thailand. Unfortunately she could not be here today.
    My career in the Foreign Service began in 1987 and has led me to 
assignments all over the world. The bulk of my assignments have been to 
developing countries including Kenya, Haiti, Gabon, and Tanzania. In 
Iraq, in 2007, I embedded with the 2/82 Airborne and ran a Provincial 
Reconstruction Team in Sadr City and Adhamiya in downtown Baghdad. In 
Afghanistan in 2011, I embedded with the 1st Cavalry as the Senior 
Civilian Representative for Regional Command East and worked on 
expanding governance and economic development programs. If confirmed, I 
would draw upon these experiences and many others to deepen U.S.-Mali 
ties as we continue to work toward our mutual goals of combating 
extremism, strengthening democratic governance and fostering inclusive 
economic growth.
    Mali continues to emerge from the most serious security, political, 
and development crises it has faced since independence. It is 
rebuilding its social, economic, and governance institutions following 
a rebellion in the north, the March 2012 coup d'etat, and the 
subsequent takeover of parts of northern Mali by extremists. Poverty 
both exacerbates Mali's conflicts and underscores its capacity 
challenges. Mali is ranked 176th of the 187 nations in the United 
Nation's 2014 Human Development Index. In addition, conflict with 
northern groups, the recent coup and the events that followed revealed 
the fragility of Mali's government institutions. Despite those 
challenges, Mali peacefully elected a President and National Assembly 
in 2013. The new government has made national reconciliation a top 
priority and donors are engaging with the country. It is within this 
context that U.S. engagement will be critical as we foster democratic 
values, promote good governance and engender peace and security. U.S. 
assistance programs will continue to increase access to education and 
health services, improve nutrition and sanitation, strengthen Malians' 
food security, and facilitate inclusive economic growth. One of the key 
strategies for deepening economic growth is expanding the resiliency of 
poor communities so that they will not be vulnerable to the shocks of 
extreme weather and conflict.
    Security and stability remain a major challenge. The United Nations 
Multidimensional Integrated Stabilization Mission in Mali (MINUSMA) was 
established by Security Council Resolution 2100 in April of 2013 to 
support the stabilization of the country and to carry out a number of 
security-related tasks. Our government continues to fully support that 
effort by providing training, equipment and intelligence. The success 
of this mission is critical to the long-term stability of the country.
    Another key objective is to aid in the reformation of the Malian 
security sector by supporting institutions that can manage internal and 
external security threats, contribute to national and regional 
stability while adhering to civilian authority, and respect 
international law and human rights norms. While there are a number of 
areas in the security sector that require investment, the near- to 
medium-term priority for U.S. assistance are those activities that will 
refine the national security strategy, repair civilian-military 
relations, improve access to justice in the north, and encourage the 
legislature and civil society stakeholders to hold security services 
accountable.
    The government has engaged in internationally supported efforts to 
advance peace talks with the northern armed groups. These talks are 
ongoing and their positive outcome is far from assured. The U.S. 
Government will continue to participate in these negotiations as an 
observer and will also continue to look for opportunities to support a 
balanced and peaceful way forward.
    The outbreak of the Ebola virus in West Africa and the threat it 
represented to Mali punctuated the need for urgent cooperation on 
health matters. Early containment of the outbreak was a major priority 
for both the Government of Mali, international partners, and the United 
States. Fortunately, the threat was successfully contained, aided in 
part by direct U.S. assistance from the State Department, the National 
Institutes of Health, Centers for Disease Control and Prevention and 
U.S. Agency for International Development.
    Mr. Chairman and members of the committee, if confirmed, I will 
look to you for counsel and support to ensure that our bilateral 
relationship remains firmly rooted in our shared vision of a democratic 
and prosperous Mali. Thank you for inviting me to appear before you 
today. I would be pleased to answer any questions you may have.

    Senator Flake. Thank you.
    Ms. Phee.

          STATEMENT OF MARY CATHERINE PHEE, NOMINATED 
        TO BE AMBASSADOR TO THE REPUBLIC OF SOUTH SUDAN

    Ms. Phee. Thank you, Mr. Chairman, Ranking Member Markey, 
distinguished members of the committee. I am honored to appear 
before you today as the President's nominee to be the United 
States Ambassador to the Republic of South Sudan.
    I would like to thank President Obama and Secretary Kerry 
for the confidence they have placed in me. If confirmed, I will 
look forward to working with this committee.
    I would also like to thank my family, friends, and 
colleagues who have generously shared encouragement, support, 
and laughter throughout my career. I could not undertake these 
challenges without them. And I would like to draw special 
attention to my sister, Amy, who is here today.
    I am deeply proud of the opportunity to serve our Nation 
and to apply my experience in tough situations to advance 
American interests and values.
    Mr. Chairman, I know you and the members of the committee 
share in the profound disappointment many of us experienced in 
December 2013 when the political process in South Sudan broke 
down, and the country's leaders resorted to violence to resolve 
their disputes. And as you noted, this has resulted in a 
significant loss of life and nearly 2 million people have been 
displaced inside and outside of South Sudan. More than 4 
million people now need emergency humanitarian assistance, and 
the country's fledgling economy is at a standstill.
    Our disappointment is rooted in the special relationship 
that we in the United States, including Congress, successive 
administrations, and the American people, forged with the 
people of South Sudan during their long civil wars and struggle 
for self-determination. We had high hopes that the 2005 
Comprehensive Peace Agreement, which led to independence in 
2011, offered a permanent end to war. But we were not blind to 
the challenges of overcoming decades of inadequate government, 
security, and development, and, with our international 
partners, sought to avert a breakdown of the fragile political 
order.
    Then and now, our core interests remain strengthening this 
young democratic state and promoting internal stability and 
regional peace.
    In collaboration with our Troika partners, which are the 
United Kingdom and Norway, we are backing negotiations to 
convince President Salva Kiir and former Vice President Riek 
Machar to commit to a durable cease-fire and to agree to a 
transitional government of national unity. The negotiating 
effort has been led by the group of countries neighboring South 
Sudan known as the Intergovernmental Authority on Development, 
or, more easily, IGAD. To the frustration of all, to date, the 
parties have resisted compromise.
    The current IGAD chairman, Ethiopian Prime Minister 
Hailemariam Desalegn, announced March 6 that he would reform 
the peace process to formally include the African Union, the 
Troika, the United Nations, the EU, and China. We support this 
approach.
    To be sustainable, we believe the final peace agreement 
must respect the desire of the people of South Sudan for 
justice and accountability, as well as reconciliation and 
healing.
    We have called for the prompt release of the official 
report from the African Union's Commission of Inquiry, which 
was charged with investigating human rights violations and 
other abuses during the armed conflict. To advance the peace 
process, the U.N. Security Council on March 3 unanimously 
adopted a resolution we introduced that established a targeted 
sanctions regime and proposed an arms embargo that could be 
imposed should the South Sudanese leaders fail to respond to 
the mediation.
    To address the humanitarian impact, we have provided more 
than $994 million in emergency humanitarian assistance, 
including help for internally displaced persons and refugees in 
neighboring countries. This assistance has helped stave off 
famine and provided lifesaving services such as water, 
sanitation, and health care.
    Mr. Chairman, if confirmed, I will work with the leaders 
and the people of South Sudan to help end the conflict and 
begin the rebuilding. I will provide vigorous support to the 
ongoing effort to improve the humanitarian situation.
    Through our partnership, we can help South Sudan begin to 
recover from this devastating setback, and regain the 
opportunities present at independence.
    Finally, Mr. Chairman, I assure you that, if confirmed, I 
will be proud to carry on the diplomatic tradition of ensuring 
the safety and security of American citizens abroad while 
focusing on the welfare of the American and South Sudanese 
staff of Embassy Juba.
    Mr. Chairman, Ranking Member Markey, I thank you for the 
honor to appear before you today, and I welcome your questions.
    [The prepared statement of Ms. Phee follows:]

               Prepared Statement of Mary Catherine Phee

    Mr. Chairman, Ranking Member Markey, members of the committee, I am 
honored to appear before you as the President's nominee to be the 
United States Ambassador to the Republic of South Sudan. I would like 
to thank President Obama and Secretary Kerry for the confidence they 
have placed in me. If confirmed, I will look forward to working with 
this committee. I would also like to thank my family, friends, and 
colleagues who have generously shared encouragement, support, and 
laughter throughout my career. I could not undertake these challenges 
without them. I am deeply proud of the opportunity to serve our Nation 
and to apply my experience in tough situations to advance American 
interests.
    Mr. Chairman, I know you and the members of the committee share in 
the profound disappointment many of us experienced in December 2013 
when the political process in South Sudan broke down and the country's 
leaders resorted to violence to resolve their disputes. This breakdown 
has generated a senseless conflict. There has been a significant loss 
of life and nearly 2 million people have been displaced inside and 
outside of South Sudan. More than 4 million people now need emergency 
humanitarian assistance and the country's fledgling economy is at a 
standstill.
    Our disappointment is rooted in the special relationship that we in 
the United States--including Congress, successive administrations, and 
the American people--forged with the people of South Sudan during their 
long civil wars and struggle for self-determination. We had high hopes 
that the 2005 Comprehensive Peace Agreement, which led to independence 
in 2011, offered a permanent end to war in South Sudan. But we were not 
blind to the challenges of overcoming decades of inadequate governance, 
development, and security, and, with our international partners, sought 
to avert a breakdown of the fragile political order. Then and now, our 
core interests remain strengthening this young democratic state and 
promoting internal stability and regional peace.
    In collaboration with our Troika partners, which are the United 
Kingdom and Norway, we are backing negotiations to convince President 
Salva Kiir and former Vice President Riek Machar to commit to a durable 
cease-fire and to agree to a transitional government of national unity. 
The negotiating effort has been led by the group of countries 
neighboring South Sudan known as the Intergovernmental Authority on 
Development, or IGAD. To the frustration of all, to date the parties 
have resisted compromise. The current IGAD Chairman, Ethiopian Prime 
Minister Hailemariam Desalegn, announced March 6 that he would reform 
the peace process to include the African Union, the Troika, the U.N., 
the EU, and China. We support this approach.
    To be sustainable, we believe the final peace agreement must 
respect the desire of the people of South Sudan for justice and 
accountability, as well as reconciliation and healing. We have called 
for the prompt release of the official report from the African Union's 
Commission of Inquiry, which was charged with investigating human 
rights violations and other abuses during the armed conflict.
    To advance the peace process, the U.N. Security Council on March 3 
unanimously adopted a resolution we introduced that established a 
targeted sanctions regime and proposed an arms embargo that could be 
imposed should the South Sudanese leaders fail to respond to the 
mediation. The resolution demonstrates that the international community 
condemns this conflict and seeks a prompt, negotiated end to the 
crisis.
    To address the humanitarian impact on the people of South Sudan, we 
have provided more than $994 million in emergency humanitarian 
assistance since the conflict began, including help for internally 
displaced persons and refugees in neighboring countries. This 
assistance has helped stave off famine and provided lifesaving 
services, such as water, sanitation, and health care.
    Mr. Chairman, if confirmed, I will work with the leaders and the 
people of South Sudan to help end the conflict and begin the 
rebuilding. I will provide vigorous support to the ongoing effort to 
improve the humanitarian situation. Through our partnership we can help 
South Sudan begin to recover from this devastating setback and regain 
the opportunities present at independence.
    Finally, Mr. Chairman, I assure you that, if confirmed, I will be 
proud to carry on the diplomatic tradition of ensuring the safety and 
security of American citizens abroad, while focusing on the welfare of 
the American and South Sudanese staff members of Embassy Juba.
    Mr. Chairman and Ranking Member Markey, I thank you for the honor 
to appear before you today and I welcome your questions.

    Senator Flake. Thank you.
    Ms. Butts.

STATEMENT OF CASSANDRA Q. BUTTS, NOMINATED TO BE AMBASSADOR TO 
                THE COMMONWEALTH OF THE BAHAMAS

    Ms. Butts. Thank you, Mr. Chairman, Mr. Ranking Member. I 
appreciate the opportunity to appear before you today as 
President Obama's nominee to be our next Ambassador to the 
Commonwealth of the Bahamas.
    I am profoundly grateful for the honor the President has 
bestowed upon me, and for the confidence shown in me by 
Secretary Kerry, as I look to assume this new assignment, if 
confirmed.
    I would like to take the opportunity to introduce my 
sister, Deidra Abbott, who is here today, representing my 
family. My family has been a wellspring of support for me, and 
I would not be here today but for their support, their love, 
and their belief in me.
    I believe my experience as a lawyer and a policy adviser, 
and my service to my country in the executive and legislative 
branches, have well-prepared me for the duties of Ambassador to 
the Commonwealth of the Bahamas. Having worked on some of the 
major legal policy issues of our time, including my most recent 
experience in international development at the Millennium 
Challenge Corporation, I have always sought solutions 
consistent with the values of our great Nation. I understand 
that leading with our values is a basis for finding lasting 
policy solutions and building strong partnerships at home and 
abroad.
    If the Senate confirms me, I would bring those experiences 
grounded in my strong belief in equality, justice, and 
compassion to the post of the Ambassador to the Commonwealth of 
the Bahamas.
    Through close political and economic and cultural ties, the 
United States and the Bahamas have forged a strong bilateral 
relationship that has served both countries quite well. 
Bahamians regularly travel to the United States to visit 
friends and family and to conduct business, and approximately 6 
million U.S. citizens travel to the Bahamas annually.
    The proximity of the Bahamas to the United Sates 
inextricably links our country's national security. Together, 
we are confronting shared challenges, such as illicit 
trafficking, including narcotics, arms, and people, as well as 
bolstering the rule of law.
    If confirmed, my first and foremost priority will be to 
ensure the safety and security of U.S. citizens living in or 
visiting the Bahamas, as well as the Turks and Caicos Islands, 
which are included among Embassy Nassau's consular oversight.
    I will work closely with the Bahamian authorities, 
community groups, and the entire U.S. mission, including the 
U.S. law enforcement officials, under Chief of Mission 
Authority, to promote innovative, effective, and whole-of-
government-based efforts to reduce crime rates and other 
illegal activities. I will also continue to promote greater 
economic ties and growth, including exploring ways to make the 
Bahamas a more attractive place in which to invest and do 
business through the development and enforcement of stable and 
transparent regulations, as well as procurement and investment 
procedures.
    If confirmed, I will work to assist the Bahamas in 
protecting and preserving for future generations the incredible 
natural beauty that makes it the vacation destination of choice 
for so many people, including by expanding marine protected 
areas. As part of the same effort, I will encourage the Bahamas 
to adopt cleaner technologies and build strong and resilient 
energy markets, which will not only provide a more secure and 
sustainable clean energy future in economic growth, but also 
limit the effects of greenhouse gas emissions.
    I also will make working with our Bahamian partners on 
human rights issues a priority by seeking to further gender 
equality; to expand opportunities for disenfranchised youth; 
and to encourage Bahamian officials to adopt fair, humane, and 
transparent practices related to irregular migrants, including 
improved access to refugee status determinations.
    Expanding educational exchanges is one of the best ways to 
deepen the already existing cultural and historic ties between 
the United States and the Bahamas. At present, approximately 
1,700 students from the Bahamas study in the United States, and 
more than 750 students from the United States study in the 
Bahamas. If confirmed, I will seek to increase levels of 
educational exchange between our two countries, including 
through enhancing existing partnerships and building new ones.
    While geography and history have forged strong bonds 
between our countries, the Bahamas also maintains close 
economic ties with many other nations. As the world economy 
continues to rebound, the Bahamas key tourism and hospitality 
sectors have seen increases in Asian investment. We do not see 
foreign economic and commercial links to the Bahamas as a 
threat to U.S. interests. We strongly believe that the American 
companies can successfully compete with anybody in the world 
when transparent regulations and practices with steadfast 
respect for the rule of law prevail.
    The United States has not had an ambassador in Nassau for 
over 4 years, but we have strong leadership and staff at U.S. 
Embassy the Bahamas continuing the important work of the 
mission. Still, the value of having a confirmed U.S. Ambassador 
to advance U.S. interests cannot be overstated.
    If confirmed, I will strive to further the good work of our 
Nassau mission and strengthen the close and productive 
bilateral relationship.
    In closing, I am confident that I have the experience and 
imagination and the energy to lead our bilateral relationship 
with the people and the Government of the Commonwealth of the 
Bahamas. I thank you, again, Mr. Chairman, and Mr. Ranking 
Member Markey, and I look forward to answering any questions 
you may have.
    [The prepared statement of Ms. Butts follows:]

                Prepared Statement of Cassandra Q. Butts

    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to appear before you today as President Obama's 
nominee to be the next Ambassador to the Commonwealth of the Bahamas. I 
am profoundly grateful for the honor the President has bestowed upon me 
and for the confidence shown in me by Secretary Kerry as I look to take 
up this assignment, if confirmed.
    Please allow me to introduce the members of my family who are here 
today. My family has been a wellspring of support. I am here today 
because of their love and support and because of their dedication and 
belief in me.
    I believe my experience as a lawyer and policy advisor and my 
service to my country in the executive and legislative branches have 
well prepared me for the duties of Ambassador to the Commonwealth of 
the Bahamas. Having worked on some of the major legal and policy issues 
of our time, including my most recent experience in international 
development at the Millennium Challenge Corporation, I have always 
sought solutions consistent with the values of our great Nation. I 
understand that leading with our values is the basis for finding 
lasting policy solutions and building strong partnerships at home and 
abroad. If the Senate confirms me, I would bring those experiences, 
grounded in my strong belief in equality, justice, and compassion, to 
the post of Ambassador to the Commonwealth of the Bahamas.
    Through close political, economic, and cultural ties, the United 
States and the Bahamas have forged a strong bilateral relationship that 
has served both countries well. Bahamians regularly travel to the 
United States to visit friends and family and to conduct business. And 
approximately 6 million U.S. citizens travel to the Bahamas annually. 
The proximity of the Bahamas to the United States inextricably links 
our countries' national security. Together we are confronting shared 
challenges such as illicit trafficking, including in narcotics, arms, 
and people, as well as bolstering the rule of law.
    If confirmed, my first and foremost priority will be to ensure the 
safety and security of U.S. citizens living in or visiting the Bahamas, 
as well as the Turks and Caicos Islands, which are included under 
Embassy Nassau's consular oversight. I will work closely with Bahamian 
authorities, community groups, and the entire U.S. mission, including 
U.S. law enforcement officials under Chief of Mission authority, to 
promote innovative, effective, and whole-of-government based efforts to 
reduce crime rates and other illegal activities. I also will continue 
to promote greater economic ties and growth, including exploring ways 
to make the Bahamas a more attractive place in which to invest and do 
business through the development and enforcement of stable and 
transparent regulations as well as procurement and investment 
procedures.
    If confirmed, I will work to assist the Bahamas in protecting and 
preserving for future generations the incredible natural beauty that 
makes it the vacation destination of choice for so many people, 
including by expanding marine protected areas. As part of this same 
effort, I will encourage the Bahamas to adopt cleaner technologies and 
build strong and resilient energy markets, which will not only provide 
a more secure and sustainable clean energy future and economic growth, 
but also limit the effects of greenhouse gas emissions.
    I also will make working with our Bahamian partners on human rights 
issues a priority by seeking to further gender equality; to expand 
opportunities for disenfranchised youth; and to encourage Bahamian 
officials to adopt fair, humane, and transparent practices related to 
irregular migrants, including improved access to refugee status 
determinations.
    Expanding educational exchanges is one of the best ways to deepen 
the already existing cultural and historical ties between the United 
States and the Bahamas. At present, approximately 1,700 students from 
the Bahamas study in the United States, and more than 750 students from 
the United States study in the Bahamas. If confirmed, I will seek to 
increase levels of educational exchange between our two countries, 
including through enhancing existing partnerships and the building of 
new ones.
    While geography and history have forged strong bonds between our 
countries, the Bahamas also maintains close economic ties with many 
other nations. As the world economy continues to rebound, the Bahamas' 
key tourism and hospitality sectors have seen increases in Asian 
investment. We do not see foreign economic and commercial links to the 
Bahamas as a threat to U.S. interests. We strongly believe that 
American companies can successfully compete with anybody in the world 
when transparent regulations and practices and steadfast respect for 
the rule of law prevail.
    The United States has not had an ambassador in Nassau for over 4 
years, but we have had strong leadership and staff at the U.S. Embassy 
in the Bahamas continuing the important work of the mission. Still, the 
value of having a confirmed U.S. ambassador to advance U.S. interests 
cannot be overstated. If confirmed, I will strive to further the good 
work of our Nassau mission and strengthen a close and productive 
bilateral relationship.
    In closing, I am confident that I have the experience, imagination, 
and energy to lead our bilateral relationship with the people and the 
Government of the Commonwealth of the Bahamas. While at the Millennium 
Challenge Corporation, I have seen firsthand the important work carried 
out by our ambassadors and their teams as they engage and advocate for 
U.S. policy goals and objectives. If confirmed, I pledge to uphold the 
tradition and high standards of public service expected of a U.S. 
ambassador. I look forward to the opportunity to continue to serve my 
country.
    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to appear before you today. I welcome your 
questions.

    Senator Flake. Thank you.
    Ms. Dhanani.

    STATEMENT OF KATHERINE SIMONDS DHANANI, NOMINATED TO BE 
         AMBASSADOR TO THE FEDERAL REPUBLIC OF SOMALIA

    Ms. Dhanani. Mr. Chairman, Ranking Member Markey, I am 
honored to appear before you today to be considered for the 
position of United States Ambassador to the Federal Republic of 
Somalia.
    I am deeply grateful to President Obama and Secretary Kerry 
for the confidence in me they have shown with this nomination.
    If confirmed, I pledge to work with you to advance our 
interests by promoting a unified and peaceful Somalia with a 
stable and representative government that can defend its 
territory, foster economic development, and defend human 
rights.
    Mr. Chairman, please allow me at this time to introduce my 
husband, Azim Dhanani. His support has meant everything to me 
as he accompanied me to assignments around the globe. And if 
confirmed, I will continue to rely on him as I take up my new 
responsibilities.
    This is a critical time in our engagement with Somalia. 
Decades of conflict, famine, and oppression led many to label 
Somalia a failed state. Today, Somalis are proving those 
pessimists wrong. There is progress in Somalia, measured, but 
real progress on security, on economic development, and on the 
establishment of representative government.
    Just over 2 years ago, the United States officially 
recognized the Federal Government of Somalia. Since that time, 
we have been working closely with the Somalis as they rebuild 
their state and lay a foundation for the future.
    The decision to nominate the first U.S. Ambassador to 
Somalia in over 2 decades was taken in recognition of our 
deepening relationship and our conviction that Somalia is on a 
path that will bring better times. Establishment of a permanent 
diplomatic presence in Mogadishu will represent the culmination 
of this recognition process, but there is no fixed timeline for 
achieving this objective.
    If confirmed, I will carefully monitor the security 
environment in Somalia, as I seek to advance our diplomatic 
objectives with no higher priority than my responsibility for 
the security of personnel under my charge. U.S. interests in 
Somalia are clear, just as the collapse of Somalia was a strain 
on the region, stability, prosperity, and peace in Somalia will 
bolster positive trends in economic and democratic development 
in Africa.
    Violent extremists exploited the past failure of governance 
in Somalia to our and Somali's detriment.
    We have a strong humanitarian interest in easing the 
suffering of 2 million refugees and internally displaced 
persons, in reducing the food insecurity that leaves Somalia 
vulnerable to famine, and in addressing the failures that place 
Somalia at the bottom of the list on so many human development 
indicators.
    If confirmed, I will keep these U.S. interests firmly in 
mind as I lead U.S. engagement with the Somali Government, the 
Somali people, and the international partners who share our 
commitment to seeing Somalia succeed.
    Mr. Chairman, in my written statement, I outlined the U.S. 
strategy on Somalia, which was submitted to Congress last 
summer. In the interests of time, I will not repeat that, but 
in sum, U.S. policy revolves around three elements: security, 
the political process, and development. Gains in each reinforce 
and must keep pace with the others.
    Mr. Chairman, Somalia is moving in the right direction but 
more progress is needed. Somali leaders must pull together to 
build their institutions, protect their citizens, and unite 
their country. Somalia's neighbors and friends must assist in 
that effort.
    I can assure you today that, if confirmed, it will be my 
honor to restore U.S. Mission Somalia, advance U.S. interests, 
and strengthen our relationship with Somalia. And I look 
forward to the opportunity to work with the committee to 
achieve those goals.
    I also look forward to answering any questions you may 
have.
    [The prepared statement of Ms. Dhanani follows:]

               Prepared Statement of Katherine S. Dhanani

    Mr. Chairman, Ranking Member Markey, and members of the committee, 
I am honored to appear before you today to be considered for the 
position of United States Ambassador to the Federal Republic of 
Somalia. I am deeply grateful to President Obama and Secretary Kerry 
for the confidence in me they have shown through this nomination. If 
confirmed, I pledge to work with you to advance our interests by 
promoting a unified and peaceful Somalia, with a stable and 
representative government, that can defend its territory, foster 
economic development, and defend human rights.
    Mr. Chairman, please allow me at this time to introduce my husband, 
Azim Dhanani. His support has meant everything to me as he accompanied 
me to assignments around the globe, and, if confirmed, I will continue 
to rely on him as I take up my new responsibilities.
    This is a critical time in our engagement with Somalia. Decades of 
conflict, famine, and oppression led many to label Somalia a ``failed 
state.'' Today, Somalis are proving those pessimists wrong. There is 
progress in Somalia--measured but real progress--on security, on 
economic development, and on the establishment of representative 
government. Just over 2 years ago, the United States officially 
recognized the Federal Government of Somalia. Since that time, we have 
been working closely with the Somalis as they rebuild their state and 
lay a foundation for the future. The decision to nominate the first 
U.S. Ambassador to Somalia in over two decades was taken in recognition 
of our deepening relationship and our conviction that Somalia is on a 
path that will bring better times. Establishment of a permanent 
diplomatic presence in Mogadishu will represent the culmination of this 
recognition process, but there is no fixed timeline for achieving this 
objective. If confirmed, I will carefully monitor the security 
environment in Somalia as I seek to advance our diplomatic objectives, 
with no higher priority than my responsibility for the security of 
personnel under my charge.
    U.S. interests in Somalia are clear. Just as the collapse of 
Somalia was a strain on the region, stability, prosperity, and peace in 
Somalia will bolster positive trends in economic and democratic 
development in Africa. Violent extremists exploited the past failure of 
governance in Somalia, to our and Somalis' detriment. We have a strong 
humanitarian interest in easing the suffering of 2 million refugees and 
internally displaced Somalis, in reducing the food insecurity that 
leaves Somalia vulnerable to famine, and in addressing the failures 
that place Somalia at the bottom of the list on so many human 
development indicators. If confirmed, I will keep these U.S. interests 
firmly in mind as I lead U.S. engagement with the Somali Government, 
the Somali people, and the international partners who share our 
commitment to seeing Somalia succeed.
    Mr. Chairman, as referenced in the U.S. Strategy on Somalia that 
the State Department submitted to Congress last summer, and the 
subsequent January update, U.S. policy revolves around three elements: 
security, the political process, and development. On the security 
front, our top priority is degrading al-Shabaab, which has links to al-
Qaeda. Driving al-Shabaab from its remaining strongholds and 
neutralizing it as a destabilizing force are critical to open up space 
for legitimate governance and development opportunities. If confirmed 
as Chief of Mission, it will be my priority to continue our efforts to 
help our African partners to degrade 
al-Shabaab. I will continue to support the African Union Mission in 
Somalia--or AMISOM as it is most commonly known--until Somalis are 
ready and able to assume full responsibility for their own security. To 
that end, building the capacity of the Somali National Security Forces 
will be a top priority.
    In Somalia, political and security gains must reinforce and keep 
pace with one another. The Federal Government has made progress 
establishing government institutions, negotiating relationships with 
regional authorities, and supporting community stabilization. However, 
the Somali Government's institutional capacity and reach remain 
extremely limited. If confirmed, I will ensure that the United States, 
in very close coordination with our international partners, continues 
to support the Somali Government as it implements ``Vision 2016''--the 
Somali-led state-building agenda for completing a federal state-
formation process, holding a constitutional referendum, and preparing 
for democratic elections.
    As we focus on the long-term goals of establishing a sustainable 
federal system of governance, we must keep in focus the immediate needs 
of the Somali people. Tragically, Somalis continue to face a multitude 
of natural and man-made threats to their livelihoods and their lives. 
Those imperiled by al-Shabaab risk losing their land, their livestock, 
and their lives; those freed from al-Shabaab may still be in danger 
from an overall lack of security, including gender-based violence and 
interclan rivalry. Last year alone, conflict forced more than 80,000 
Somalis from their homes. The food security situation continues to 
teeter on the brink of crisis with a million or more Somalis at risk. 
If I am confirmed, U.S. efforts to help address these urgent needs will 
remain at the forefront of our engagement.
    Mr. Chairman, Somalia is moving in the right direction, but more 
progress is needed. Somali leaders must pull together to build their 
institutions, protect their citizens, and unite their country. 
Somalia's neighbors and friends must assist in that effort. I can 
assure you today that, if confirmed, it will be my honor to restore 
U.S. Mission Somalia, advance U.S. interests, and strengthen our 
relationship with Somalia, and I look forward to the opportunity to 
work with the committee to achieve those goals.

    Senator Flake. Thank you, Ms. Dhanani. I want to apologize. 
I put an ``L'' in your name at the beginning.
    Well, thank you for your testimony, all of you, and thank 
you again to the family members who are here and watching from 
afar, as well.
    Mr. Folmsbee, with regard to Mali, what is the biggest U.S. 
commercial interest that we have there?
    Mr. Folmsbee. You know, Senator, to be honest with you, 
Mali is fighting for last place in a human index factor put out 
by the United Nations. Its economy is at a low point after the 
2012 coup, and so it is very modest.
    Any kind of economic development issue, I am sure we could 
dig up some U.S. sales and that sort of thing, but it is going 
to be very limited. In reality, it is going to be development 
assistance at this point.
    Senator Flake. So commercial development not for a while, 
mostly development?
    Mr. Folmsbee. If we can hook some U.S. companies out there, 
I promise you I will personally get on it and help get them out 
there.
    Senator Flake. It is a good place to start, in that regard.
    Mr. Folmsbee. Absolutely.
    Senator Flake. Well, great.
    Ms. Phee, just yesterday it was reported that the 
legislature or the lawmakers in South Sudan voted to extend the 
President's term for another 3 years. I guess they are trying 
to confer legitimacy where they can. What role is President 
Kiir playing at present, in your view? What can he do to help 
the situation at this point?
    Ms. Phee. Thank you, Senator. We believe the best approach 
remains a peace agreement, a peace agreement that would end the 
conflict and establish a transitional government of national 
unity. And one of the key tasks of that transitional government 
would be to hold elections, permanent elections. That would be 
the best way to renew legitimacy.
    The President's Special Envoy, Ambassador Donald Booth, was 
in Juba yesterday meeting with President Kiir to continue to 
push him to make the compromises necessary to reach that peace 
agreement.
    Senator Flake. We have a long way to go, though, it is safe 
to assume.
    Ms. Phee. It is a challenging task ahead of all of us. One 
good sign is the fact that so many are unified in wanting to 
see an end to this conflict. The neighbors, the African Union, 
the United Nations, China is supporting us in this effort. So, 
hopefully, if we continue to speak with a collective voice, we 
will be able to make an impact.
    And in that regard, Mr. Chairman, I would like to thank the 
Congress for its efforts. Its statements, its meetings, its 
calls, have helped reinforce that message to the South Sudanese 
leaders that it is time to make compromise.
    Senator Flake. The countries in the region are playing a 
role through the regional organization, but Uganda has kind of 
played an outsized role there. Has that been negative or 
positive or both? I know there have been some issues with some 
of the troops.
    Ms. Phee. Thank you, Mr. Chairman. IGAD has had a tough 
time, but I think it is important to recognize that any peace 
agreement that is reached will need the support of its 
neighbors to be fully effective. So we continue to engage with 
them to work closely with them to try and help them reach the 
shared goal that we all have of seeing an end to the conflict.
    Senator Flake. You mentioned one of your roles, as it is 
for every Ambassador, to protect U.S. citizens who happen to be 
traveling there. To what extent do we have U.S. citizens--I am 
assuming it is mostly those in the Sudanese diaspora. What kind 
of visits are they on right now? I mean, are there other many 
visits going on?
    Ms. Phee. Thank you, Mr. Chairman, for raising that point. 
The State Department last issued a travel warning for South 
Sudan advising American citizens not to travel there because of 
the current conflict. We did that in January of this year. So 
you are absolutely correct. The primary set of visitors from 
the United States are members of the diaspora, who, like us, 
care very deeply about this situation and are trying to support 
a positive resolution.
    Senator Flake. Thank you.
    Ms. Butts, when we spoke in my office, you were talking 
about the pretty robust presence that we have there given our 
interest in all the travel, 6,000 visits a year. Can you 
describe how many State Department employees, roughly, and how 
many folks from Customs and other agencies of government there 
are there?
    Ms. Butts. Thank you, Mr. Chairman. Nassau is distinct as a 
post in that there are actually fewer State Department 
employees in Nassau than there are Homeland Security employees. 
Actually, there is more of a Homeland Security presence there 
from Customs and Border Protection, and a lot of the work that 
we do around immigration and trying to deter irregular 
migration. There is a significant Coast Guard presence in 
Nassau. So in total, we have a little over 200 staff with about 
20-plus on the State Department side, and about 70 for Homeland 
Security, and then other agencies are also included. We have a 
few from DOJ. We have, of course, have a military attache at 
post.
    And as you appreciate, it is an archipelago, so there are a 
number of islands. So in Freeport, for example, there is a 
significant Customs and Border Protection presence, because of 
preclearance for flights that go between the United States and 
between the Bahamas.
    So it is a distinct post in both the size and the 
composition of the staff at post.
    Senator Flake. A lot of your function will be coordinating 
then, I assume?
    Ms. Butts. It will, and that is actually one of the 
challenges of the post. Things have been working very well. The 
Charge there, Lisa Johnson, is actually with us today and has 
done a great job waiting for an ambassador.
    But the coordination is a significant part. Fortunately, 
the agencies work very well together, and we have a very, very 
robust coordinated effort in dealing with illicit trafficking 
and dealing with irregular migration.
    Senator Flake. Well, thank you.
    Ms. Dhanani, can you describe the security situation 
currently in-country? My understanding is that you will not be 
stationed in the country, initially. You will operate from 
Nairobi. We have a secured facility at the airport, I guess.
    Can you kind of describe the challenges that we have there, 
and what the timetable might be for you to actually be in-
country for more than a few days at a time, I should say?
    Ms. Dhanani. Thank you, Mr. Chairman, and you have 
identified one of the major issues that will be preoccupying 
me.
    I go to Nairobi with a mission of reestablishing a 
permanent diplomatic presence in Mogadishu, but that will 
depend on improvements in the security circumstances on the 
ground. We have adopted a policy that involves continual 
monitoring of the security environment and phased reengagement. 
The phase that we currently stand at allows us to have members 
of the U.S. Government team enter Mogadishu for periods of up 
to 2 weeks, to stay for periods as long as 2 weeks. But we can 
only have a limited presence in Mogadishu at any given time.
    And at the moment, our assessment of the security situation 
does not permit us to move beyond the airport. Clearly, we need 
to see improvement in the security situation what will allow us 
to have greater access to all of Mogadishu, as well as have 
greater numbers of people on the ground at the airport. So 
there are limitations today, but it is an enormously improved 
situation to what it was as little as 2 years ago.
    During the last year, the team in the Somalia unit and the 
U.S. Government employees made 161 trips into Somalia. They 
visited Mogadishu. They visited many of the regional capitals. 
They have really had an opportunity to substantially expand 
their engagement.
    As I am there, I will be engaged in constant risk 
monitoring, risk mitigation, and risk management as we seek to 
take advantage of improved security to move further and engage 
further in the pursuit of the objectives that we have in 
Somalia.
    Senator Flake. A little more complicated than finding a 
real estate agent and looking for a residence then, I assume. 
Well, thank you.
    Mr. Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Phee, could you talk about a year later after the 
United States announced sanctions against South Sudan, in terms 
of the cooperation we are getting from the EU in ensuring the 
effectiveness of our policy?
    Ms. Phee. Thank you very much for that question.
    The resolution that was adopted earlier this month in the 
Security Council was a unanimous resolution that established a 
framework to impose international targeted sanctions. That 
unanimous resolution follows individual steps by the United 
States, where the President has used his Executive authority, 
as well as action by the EU to impose EU's targeted sanctions. 
So we are now ready to use the forum in the Security Council as 
a tool to support the peace negotiations.
    I think, in sum, I would characterize the EU posture as 
complementary to our own and adding to the collective pressure 
to reach an end to the conflict.
    Senator Markey. Ms. Dhanani, how would you characterize al-
Shabaab's relationship with al-Qaeda in all of it is 
manifestations? And how would you describe al-Shabaab's ability 
to recruit outside of its region, to further destabilize the 
area?
    Ms. Dhanani. Senator Markey, al-Shabaab has formally 
affiliated with al-Qaeda, so when we engage or consider 
engagement regarding al-Shabaab, we treat al-Shabaab as we 
would al-Qaeda.
    A very worrying aspect of the crisis in Somalia in recent 
years has been the effect that it has had on Somalia's 
neighbors. Certainly, in Kenya, in the Westgate mall attack 
last year, but also throughout the region in Uganda, Djibouti, 
and elsewhere, there have been incidents. There have been 
attacks--some successful, some unsuccessful--that have their 
roots in al-Shabaab.
    And it is for that reason that Somalia's neighbors have 
formed the bulk of the force that we are supporting as they 
seek to reverse the gains of al-Shabaab.
    Senator Markey. What is al-Shabaab's largest source of 
revenue today?
    Ms. Dhanani. My understanding, sir, Ranking Member Markey, 
is that al-Shabaab continues to rely on charcoal trade, taxes 
that they achieve through the charcoal trade, and also through 
extortion.
    They no longer control cities. They no longer control large 
areas. But they are present in various places in the country. 
Their resources are much more limited than they were when they 
controlled a large part of the country, but they still have 
access in a number of places.
    Senator Markey. Okay, thank you.
    Mr. Folmsbee, can you talk a little bit about the French 
presence in Mali, its military there, what role it is playing, 
what success it is enjoying or not enjoying? Just give us a 
little bit of an overview of the French role right now in that 
country.
    Mr. Folmsbee. Well, thank you for that question, Senator.
    The French role has been critical. The French went into 
Mali in 2013 and drove al-Qaeda out of the Northern areas. We 
have heavily supported that activity, mostly in logistics, but 
the French have done a lot of good work there. Also with 
training and setting up MINUSMA, they have also played a key 
role, although they are also assisting directly with the Malian 
Army as well, where there have been some difficulties. So they 
played a very key role.
    Senator Markey. What is it going to take for the rebels to 
agree to a peace deal, in your opinion?
    Mr. Folmsbee. Well, that is a good question. You know, I 
think the fundamental issue is going to come down to the 
government and the northern groups, led in part by MNLA, to 
agree to some terminologies relating to the devolution of 
authority and power.
    I do not know if I see the end of that just yet, but I am 
hopeful that we will get there. So I think we can hope that 
will come.
    Senator Markey. Okay, great, thank you.
    Ms. Butts, who I have known for 20 years, can you talk a 
little bit about the immigration policy in the Bahamas and the 
questions that are being raised about the barriers that are 
being erected to being able to gain citizenship and not living 
in a stateless status? Could you give your overview of what 
that situation looks like today?
    Ms. Butts. Yes, absolutely. Thank you, Ranking Member 
Markey.
    We work in a coordinated effort with the Bahamians to 
patrol both sea and surface patrols to deter irregular 
migration in the region, but also to interdict irregular 
migration when we have the opportunity to do so. It is my 
understanding that migrants coming through the area are 
principally Haitian and Cuban migrants who stop off in the 
Bahamas, and ultimately want to make their way to the United 
States.
    If I am confirmed, one of the things that I will urge the 
Bahamian Government is to ensure that they are following 
international standards in how they are managing irregular 
migration with the support of the United States as we have 
supported them in the past.
    There are significant pockets of migrants in the Bahamas. 
There is a large Bahamian-Haitian community in the Bahamas. As 
you are probably aware, Senator Markey, there has been a change 
in the policy of the Bahamian Government. It actually went into 
effect in November 2014. It now requires that migrants who are 
in the country actually have passports of their countries of 
nationality, and they also have documentation that they can 
legally be in the Bahamas.
    There have been concerns that have been raised by the 
Bahamian-Haitian community and by human rights advocates that 
the implementation of the policy has unfairly targeted Haitian 
communities, and that the Haitians or that the detainees who 
are being detained as a result of the policy in the detention 
facility are not being treated to international standards.
    I will, certainly, urge while I am there, if I am 
confirmed, that the Bahamians follow international standards in 
how they are implementing their immigrant policy and also how 
they are maintaining the detention facilities.
    As you are aware, Senator Markey, I have worked for a 
number of years on issues related to migration. These are 
things that I care about, I understand, and I look forward to 
having the opportunity, if confirmed, to engage on the issue.
    I am very confident, though, that the Bahamians have robust 
democratic institutions, and they will be able to address these 
concerns with the help of the U.S. Government and also the 
international community, and I look forward to engaging.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    We will do one more round, if that is all right.
    Mr. Folmsbee, do we know who is responsible for the latest 
attacks on the MINUSMA forces?
    Mr. Folmsbee. In the north, yes, I believe there is very 
good intel on that. This is an open session, and I do not know 
if it is out in the public yet. But there is good intel on 
that.
    There were also attacks in Bamako, and al-Mourabitoun 
actually has claimed responsibility for those attacks.
    Senator Flake. Do we know what is leading to this increase 
in attacks?
    Mr. Folmsbee. Well, it is very clear that some of the 
Tuareg extremists groups are looking to put pressure on the 
government as it relates to the peace talks. I think there is 
little doubt about that.
    But I also think that they will be thwarted. I think there 
is a lot of pressure back against them.
    Senator Flake. As far as the U.S. Government is concerned, 
do we have the right mix in civilian and military tools for you 
in the country?
    Mr. Folmsbee. I think we do, but I will also say, if 
confirmed, I am, certainly, going to be looking at that, 
because that is a fair question. The key issue is going to 
ultimately be what is the north--the opportunity for the 
government is really to make inroads to the north. There have 
to be paved roads up there. There have to be jobs up there. 
There have to be hospitals up there.
    So if the government does not swing around with that, our 
actions will not matter that much. So we have to make sure that 
the government takes that on.
    Senator Flake. Thank you.
    Ms. Phee, you mentioned in your testimony, the U.N. 
Security Council on March 3 resolution established a targeted 
sanctions regime, even proposed an arms embargo that could be 
imposed, should these South Sudanese officials not respond to 
mediation. What effect do you believe that would have, 
particularly the arms embargo that is talked about?
    Ms. Phee. Thank you, Mr. Chairman. The objective of the 
resolution was to send sort of an unequivocal signal to the 
parties that they were at a crossroads, that it is really time. 
This conflict has gone on too long. The humanitarian 
consequences are devastating. And it is time to reach an end 
and find a way forward.
    So it was an effort to provide the negotiators with a tool 
to convince both sides that there is no self-interest in 
sustaining the conflict. That is the objective of the 
resolution. It is tied very closely to the progress of the 
negotiations, particularly, as I mentioned, this new effort by 
IGAD to reformulate the negotiating process, and, frankly, to 
provide a more direct role for outsiders such as ourselves to 
be engaged and hopefully bring this over the finish line.
    Senator Flake. All right, well, thank you.
    Ms. Butts, we have cooperation with the government with 
regard to drug interdiction, with the Bahamian Government. Can 
that be improved, or is that considered good? How would you 
characterize it?
    Ms. Butts. Thank you, Mr. Chairman. We have made tremendous 
progress in that area. As you are aware, during the 1980s there 
was very robust trafficking, a lane through the Bahamas. And at 
that point in the 1980s, about 80 percent of the cocaine that 
came to the United States actually came through the Bahamas.
    Since then, we have actually established a very robust 
partnership that is focused on our OPBAT task force. As 
recently as 2011, actually 10 percent of the cocaine coming to 
the United States actually came through the Bahamas, and so we 
have had tremendous success in that regard.
    Unfortunately, over the past couple of years, Mr. Chairman, 
we have seen a bit of an uptick in what was 10 percent in 2011, 
has now become about 14 percent. So we are doing well. We can, 
certainly, do better. We could, certainly, use additional 
resources to fight illicit narcotics coming through. But we 
have a very strong partnership with the Bahamians on that area.
    Senator Flake. Thank you.
    Ms. Dhanani, what do you think the prospects are for 
elections that are scheduled to be held next year? And given a 
very complicated arrangement with the government appointed, as 
opposed to elected, how credible will that be seen around the 
country, if these elections are actually held?
    Ms. Dhanani. Thank you, Mr. Chairman, and I think you have 
touched on an extremely important factor. We need a Government 
of Somalia that is a representative government, that the people 
feel is answerable to them, and that is representative to all 
the regions of the country in order to have stability going 
forward.
    The existing Federal Government of Somalia was selected. 
Elders selected the Parliament, and the Parliament nominated 
the President, and there is a degree of representivity, but not 
to the extent that we require.
    That government, however, has defined and outlined a 
detailed roadmap toward representative government. ``Vision 
2016'' is the name of this roadmap. It is a roadmap that we and 
the rest of the international community are supporting.
    It includes a number of steps on which the deadlines have 
already been missed, quite frankly. We are currently focused on 
urging the Somalis to make progress toward restoring that 
schedule, making progress toward establishing a constitution.
    Creating a federal system is a very complicated task. When 
we think of what our Founding Fathers achieved and the 
stability of the United States, it is quite remarkable. This is 
the challenge that faces Somalis today. And we are supporting 
the vision that they have outlined, and we are urging, along 
with our friends and throughout the international community, 
that they stick to this plan that they have defined for 
themselves.
    Senator Flake. Thank you.
    Mr. Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Each of you is extremely well-qualified. Life's work has 
prepared you for the jobs which you are being nominated to take 
on for our country. What I would like you to, perhaps, give us 
is, in each one of your own words, your hopes for what you will 
be remembered for in your ambassadorship, what achievement you 
want to have left behind when your service has been completed. 
I am going to ask each one of you to give me a sense of what it 
is that you would like to have left as your legacy.
    We will begin with you, Mr. Folmsbee.
    Mr. Folmsbee. This is really a great opportunity to talk 
about that, so thank you for that question.
    I think the key element and concern I have for Mali is the 
divide where the Niger River runs across the country. Everybody 
to the north has never really been connected to everyone to the 
south. So you have this cycle of conflict that has been going 
on for 50 years and probably much longer, actually.
    I think the opportunity for all of us in the diplomatic 
community and the government is to help connect that. That is 
going to be through education and other areas, as well as in 
security.
    So I hope that is the legacy that someone like myself and 
our whole team can leave behind, making that connection. That 
is going to make a big difference that will help stabilize that 
country.
    That is what I am going to do, if confirmed.
    Senator Markey. Thank you, sir.
    Ms. Phee.
    Ms. Phee. Thank you, Ranking Member Markey, for your 
support. If I were to be confirmed, I would be the second U.S. 
Ambassador to the Republic of South Sudan, so that raises a 
question: Who wants to be second, right? Generally speaking, 
second is not a positive space.
    But in this instance, I think second is very important and 
very special, because I would symbolize United States 
commitment to the people of South Sudan. We are there in the 
tough times, as well as the more fun times, as was experienced 
in 2011 when the new state was established.
    So, moreover, I would also follow, I think, in the 
footsteps of so many Americans, students, church groups, 
activists, Members of Congress, members of so many 
administrations who have cared for so long for the people of 
South Sudan and all the suffering they have experienced.
    So I would be proud to stand second behind all those folks, 
and represent U.S. commitment to helping get this right.
    Senator Markey. Thank you.
    Ms. Butts.
    Ms. Butts. Thank you, Ranking Member Markey.
    There is so much that I want to do. If I had to boil it 
down, I would say, just overall strengthening the bilateral 
relationship, furthering social and economic justice in the 
country. Certainly, building on and enforcing and supporting 
human rights for all the people of the Bahamas, and just more 
within the mission, within post, strengthening management, 
improving morale, showing that the people who work at post are 
valued and all of their efforts are appreciated.
    So I hope that my legacy is both inside appreciating the 
people who work at post, and outside reflecting the best of 
U.S. values and the best that we have to offer in America.
    Senator Markey. Thank you.
    Ms. Dhanani.
    Ms. Dhanani. Thank you, Senator Markey.
    I think I have a small advantage here. Unlike my colleague 
nominated for South Sudan, I will be the first in sometime, and 
therefore, I have that advantage in a sense.
    You know, the step of deciding to nominate someone to serve 
as Ambassador to Somalia represented the progress that was the 
result of a lot of hard work that many people, including many 
of my colleagues in the U.S. Government, put in over the last 
few years. So in a sense, my nomination is a tribute to the 
efforts that they made.
    Similarly, I would hope the efforts that I and my team make 
will take us to that next step, the step of establishing a 
permanent diplomatic presence in Mogadishu. I think that step 
will be important in itself, but it will be even more important 
because it will be a sign that so many things have continued to 
move in a favorable direction, and that Somalia is getting 
closer and closer to being the kind of peaceful, secure, 
unified, stable place that we would all like to see it become.
    Senator Markey. Thank you.
    Well, you are an extraordinary group, and we thank you for 
your willingness to serve our country.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    I want to note the presence of the Deputy Chief of Mission, 
Chet Neymour, from the Bahamas here.
    I want to thank all of you for your testimony and for being 
here. Thank you for your service. And hearing your remarks and 
looking at your resumes, it is apparent that you have all been 
at this awhile. And I know that sometimes our diplomatic 
efforts are overlooked by the general populace. You are not 
given the opportunity to board an airplane first or things like 
that sometimes that another branch of our government seems to 
get noticed for. But I want you to know that we here appreciate 
what you do, and we are grateful for your sacrifice and for the 
sacrifice of your families. The risks, we know that the risks 
out there that you expose yourselves to as well, and they are 
not insignificant, particularly with many of these assignments.
    So thank you for what you do. Thank you for being here.
    For the information of members, the record will remain open 
until the close of business on Friday, March 27. This will 
include time for members to submit questions for the record. We 
would ask you to respond to these questions quickly. Your 
responses will be made part of the record as well.
    Senator Flake. With the thanks to the committee, this 
hearing is now adjourned.
    [Whereupon, at 3:12 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


   Responses of Paul A. Folmsbee, Nominated to be Ambassador to the 
      Republic of Mali, to Questions from Members of the Committee

               ambassador-designate folmsbee's reponses 
                    to questions from senator corker
    Question. What further influence will the United States utilize 
through your offices or other means to compel greater compromise and 
collaboration in seeking sustainable peace, especially by the long-
standing intransigent government and officials in the southern portion 
of the country? How will you work with the Government of Mali in 
addressing marginalization in the north?

    Answer. The United States is engaged in robust diplomatic outreach 
to urge all parties in Mali to commit immediately to the March 1, 2015, 
peace agreement. We are working closely with the Government of Mali to 
support improved service 
delivery to northern Mali and are considering ways we could support a 
final peace agreement.
    Right now, the United States is supporting a variety of efforts 
designed to promote peace and reconciliation in northern Mali, 
including translating, printing, and disseminating 30,000 copies of the 
peace agreement in local languages; empowering grassroots civil society 
peace campaigns through hundreds of local forums and discussions; 
promulgating radio and television programming and targeted SMS text 
messages reaching millions of Malians; and strengthening national-level 
institutions charged with resolving the crisis, such as through 
creating a communications cell in the Ministry of National 
Reconciliation and improving the capability of justice and civilian 
security institutions to provide vital services in the north.

    Question. What are the positions of the United States, France, and 
neighboring states on the prospect of federalism or autonomy for 
northern Mali? How such reorganization affect U.S. policy in Mali?

    Answer. The United States, together with France and other key 
international partners, strongly supports the June 2013 Ouagadougou 
Accord. This framework agreement, signed by both the Government of Mali 
and the northern armed groups, reinforces the international community's 
commitment to the territorial integrity of the Malian state.

    Question. MINUMSA signals a shift in the context of United Nations 
peacekeeping operations in which peacekeepers are combating an 
extremist presence. Does the United States support U.N. peacekeeping as 
peace enforcement?

    Answer. Today, two-thirds of U.N. peacekeepers are operating in 
active conflict areas, many with a chapter VII mandate of peace 
enforcement. The United States has supported that mandate for these 
missions. Some of these chapter VII mandated missions involve peace 
enforcement in situations involving extremists. MINUSMA does not 
necessarily represent a shift in the chapter VII operating environment.
    MINUSMA's mandate, under chapter VII authority, to protect 
civilians and support the Malian authorities in stabilization efforts 
and to take steps to deter threats and prevent the return of armed 
elements, is one part of a broader strategy, including political 
engagement, to bring stability to northern Mali.

    Question. How does the lack of an AFRICOM jurisdictional boundary 
in the Sahel region benefit U.S. Government efforts in dealing with the 
instability in Mali? What benefits would State Department realize if 
there was a unified region under one Regional Bureau? How does State 
Department work through the range of regional and bilateral programming 
applied to counter terrorism, transborder criminal trafficking and 
activity, build governance and economic capacity, train, equip, advise 
and assist security forces, and respond to humanitarian and human 
rights crises?

    Answer. Through the Trans-Sahara Counter Terrorism Program (TSCTP), 
the United States is working to address transborder issues in Mali and 
the Sahel. TSCTP supports programs that strengthen the Government of 
Mali's operational and tactical abilities to combat terrorism and 
programs designed to ensure that Malians remain unreceptive to 
extremist messages.
    Programs designed to strengthen Mali's counterterrorism 
capabilities include:

  <diamond> Antiterrorism Assistance (ATA) training for law 
        enforcement. This program provides police with training needed 
        to protect facilities, individuals, and infrastructure from 
        terrorist attacks and respond to major crises such as hostage 
        takings.
  <diamond> Establishment of a Legal Advisor from Department of Justice 
        beginning in calendar year 2014.

    Programs designed to counter violent extremism include:

  <diamond> Installation of community radio stations in the most remote 
        regions of northern Mali and support for radio programming;
  <diamond> Support for small scale-community infrastructure such as 
        school rehabilitation and well projects;
  <diamond> Engagement with ``medersas,'' which in Mali are Islamic 
        versions of parochial schools that teach secular subjects and 
        are very different from ``madrasas'' or Koranic schools;
  <diamond> Publishing and distribution of 56,600 Arabic-language 
        civics textbooks to medersas for the 2011-2012 school year;
  <diamond> Cultural and educational exchange programs and the 
        preservation of ancient Islamic manuscripts;
  <diamond> Capacity-building for local government officials and 
        institutions to support decentralization and democratic 
        governance; and
  <diamond> Skills training for youth, including a just launched USAID/
        Mali Out-of-School Youth Project (Projet d'Appui aux Jeunes 
        Entrepreneurs) that provides out-of-school youth, ages 14-25, 
        with low literacy skills nonformal basic education instruction, 
        technical and work readiness training, as well as training in 
        entrepreneurship and leadership.

                               __________
               ambassador-designate folmsbee's responses 
                   to questions from senator menendez
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. As the Senior Civilian Representative embedded with 
Regional Command East in Afghanistan from 2011 to 2012 and as 
Provincial Reconstruction Team Leader embedded with the 2/82 Airborne 
in Sadr City and Adhamiya, Baghdad, Iraq from 2007 to 2008, I am proud 
of the work I did to promote stability, strengthen democracy and 
protect human rights in two dangerous but vitally important places. If 
confirmed, I will draw on my experiences in Iraq and Afghanistan, among 
others, to emphasize the importance of protecting human rights and 
promoting justice as we work to support the national reconciliation 
process in Mali.

    Question. What are the most pressing human rights issues in Mali? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Mali? What do you hope to 
accomplish through these actions?

    Answer. The 2013 inauguration of President Keita and the 
establishment of a new National Assembly through free and fair 
elections ended a 16-month transitional period following the 2012 
military coup, armed rebellion, and terrorist occupation of the north. 
The restoration of a democratic government and the arrest of coup 
leader Amadou Sanogo restored some civilian control over the military. 
The 2013 international military intervention helped to eradicate 
terrorists and the resumption of peace talks with armed groups has 
decreased armed conflict.
    However, problems exist in some areas. These include ineffective 
civilian control over security forces and impunity toward the military; 
acts of sexual violence, summary execution, torture, and use of child 
soldiers by armed groups; killing of civilians and military forces 
including peacekeepers by violent extremists; trafficking in persons 
and exploitative labor, including child labor; and judicial 
inefficiency, poor prison conditions, arbitrary arrest and detention, 
lengthy pretrial detention prolonged trial delays, and lack of access 
to justice in the North.
    If confirmed, I will continue Embassy Bamako's extensive diplomatic 
outreach and programming in support of the peace process and a national 
reconciliation process that will provide justice and accountability.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mali in advancing 
human rights and democracy in general?

    Answer. The Government of Mali took strong initial steps to advance 
justice and fight impunity from prosecution, most notably with the 
imprisonment and ongoing investigation against coup leader Amadou 
Sanogo and 28 other individuals implicated in extrajudicial killings 
and forced disappearances committed in the aftermath of the coup 
d'etat. Judge Yaya Karambe helped drive this fight against impunity as 
he worked under constant threat from Sanogo's supporters to gather 
evidence and arrest suspects, culminating in his uncovering a mass-
grave with 21 missing Red Beret soldiers in December 2013.
    These efforts are laudable, but I am concerned about the lack of 
progress in pursuing justice for victims of terrorism or human rights 
abuses that occurred during the occupation of northern Mali. Human 
rights abuses committed in northern Mali on all sides of the conflict 
have not been addressed and remain a sticking point in the 
reconciliation process. The capacity of the justice sector is 
significantly limited in the north, as judicial officials have been 
slow to return over continued fears of insecurity. Human rights 
organizations documented various abuses committed during and after the 
conflict, including northern armed groups which killed, raped, and 
abused soldiers and civilians during the 2012 invasion, and Malian 
Armed Forces which committed summary executions, torture, and forced 
disappearances upon retaking territory in early 2013.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the United States and with local human 
rights NGOs in Mali?

    Answer. If confirmed, I look forward to working closely with 
nongovernmental organizations in both the United States and Mali to 
solidify Mali's democratic transition and promote human rights.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy in Mali as well as steps you would take to accomplish the 
goal of the law, namely, helping the Government of Mali end impunity 
for human rights violations by security forces.

    Answer. If confirmed, I will work to strengthen security sector 
institutions in Mali by promoting accountability and civilian control. 
Careful attention to the Leahy vetting process is critical in assuring 
that this assistance reaches only those individuals within Mali's 
security forces who are not implicated in abuses of human rights and 
can be credible advocates for reform and professionalization through 
participation in a meaningful national reconciliation process that 
emphasizes respect for human rights of all Malians.

    Question. After days of protests in the north and a rejection of 
the recent peace proposal by Tuareg rebels, the Malian Government 
announced that it would no longer negotiate on the future of the north.

  <diamond> What are the implications of the recent stalemate over a 
        peace deal?

    Answer. Failure of the parties to reach an agreement risks further 
violence and increased alienation by the northern populations. However, 
the agreement would be only a first step toward peace, security, and 
development in the polarized communities in the north. Without a peace 
agreement and follow-on action to resolve long-standing issues that 
divide Bamako and the north, violent extremists will continue to make 
northern Mali insecure. This insecurity has increased, with more 
frequent attacks against civilians, the United Nations Multidimensional 
Integrated Stabilization Mission in Mali (MINUSMA ), and the French 
forces of Operation Barkhane.
    Upon signing a peace agreement, the opportunity for the Government 
of Mali is to noticeably establish a real presence in the north with 
hospitals, paved roads, schools, and expanding economic development. 
The United States will do all it can to assist the government in that 
initiative.

    Question. In your written testimony, you referenced the need to 
reform the Malian security sector. Mali is one of six partner countries 
for the administration's new Security Governance Initiative (SGI).

  <diamond> What is the status of the development of SGI programming in 
        Mali?
  <diamond> What has been achieved through existing security sector 
        assistance programs such as the Trans-Sahara Counterterrorism 
        Partnership (TSCTP)?
  <diamond> What lessons can be drawn from TSTCP to inform efforts 
        under SGI?

    Answer. An interagency Security Governance Initiative (SGI) team 
visited Mali in February to consult with Malian partners on potential 
areas for SGI engagement. Expert teams will reengage with Malian 
counterparts to develop joint country action plans and programs.
    Trans-Sahara Counter Terrorism Program (TSCTP) activities in Mali 
remain very targeted to specific sectors and activities. We have small 
programs focused on law enforcement, justice sector, and corrections 
reform and Antiterrorism Assistance programming on crisis response and 
terrorist interdiction. In part this is due to the significant European 
Union program underway there that permits us to be more selective in 
our engagement. This year TSCTP supported the deployment of Law 
Enforcement and Resident Legal Advisors to assist in civilian security 
and justice sector reform. In addition, TSCTP supports several 
countering violent extremism (CVE) programs promoting peace building, 
reconciliation, and tolerance. Overall, the United States is focusing 
on broader security sector reform and political reconciliation before 
committing to the same kind of tactical training and equipping of 
counterterrorism units.
    TSCTP's experience in Mali and elsewhere in the Sahel and Maghreb 
provides several important lessons which may benefit SGI efforts. Our 
experience in Mali highlighted the importance of addressing state 
weakness and focusing on institutional resilience as key parts of our 
overall engagement strategy. Before the fall of the Toure Government, 
TSCTP focused on tactical-level training for various Malian units and 
the underlying state weaknesses were not sufficiently addressed. 
Consequently, when the units were deployed without adequate leadership 
or logistical support, they quickly collapsed. By contrast, TSCTP has 
intensified its focus on building more sustainable capabilities in 
Chad, Mauritania, and Niger and invested in defense and civilian 
security institutions. Capacities in those countries remain nascent in 
many sectors, but we have seen benefits to the approach as they have 
responded to threats along multiple borders from Mali, Nigeria, and 
Libya.

    Question. Mr. Folmsbee, you alluded to the north-south divide in 
Mali that has contributed to cycles of conflict. The integration of 
Tuareg citizens into the broader society has been an ongoing challenge, 
not only in Mali, but elsewhere in the Sahel.

  <diamond> If confirmed as Ambassador, how do you plan to work with 
        the Malian Government, civil society organizations, and other 
        stakeholders to work toward this goal?

    Answer. National reconciliation is a top U.S. policy priority in 
Mali. If confirmed, I plan to continue working to promote national 
reconciliation through partnerships with civil society and the Malian 
Government and by participating in the peace talks as needed. 
Additionally, with USAID programming, we will promote economic growth 
and the health sector to help tie the north to the rest of the country.
    In direct support of the peace talks, our efforts will include 
translating, printing, and disseminating 30,000 peace process documents 
in local languages; empowering grassroots civil society peace campaigns 
through hundreds of local forums and discussions; promulgating radio 
and television programming and targeted SMS text messages reaching 
millions of Malians; and strengthening national-level institutions 
charged with resolving the crisis, such as through creating a 
communications cell in the Ministry of National Reconciliation.

                               __________
               ambassador-designate folmsbee's responses 
                    to questions from senator flake
    Question. What more, if anything, can be done to stimulate economic 
growth and alleviate poverty in Mali? What are the most significant 
U.S. commercial interests in Mali? What is the environment for U.S. 
businesses and investors, and how might it be improved?

    Answer. Mali faces formidable challenges to economic development. 
Its economy is heavily dependent on agriculture, which makes up 45 
percent of GDP and provides income for 75 percent of the country's 
population.
    In order to promote long-lasting food security, the United States 
invests in the sustainable development of agriculture through the Feed 
the Future (FTF) initiative. Agriculture is a driver of economic 
growth, employment, better health, and nutrition, and remains a sector 
where Mali has an underexploited comparative advantage.
    With an FY 2014 budget of $18 million, FTF works to develop and 
reinforce the private sector by targeting opportunities in the 
production, processing, and trade of selected commodities in key 
geographic areas. USAID/Mali also recently signed a nearly $14 million 
dollar Development Credit Authority (DCA) microcredit facility to 
support small and medium-size agricultural enterprises as well as 
female entrepreneurs.

    Question. Would you advise an expansion of U.S. security 
assistance? Please describe how the Security Governance Initiative will 
be implemented in Mali.

    Answer. Rebuilding Mali's security institutions in the wake of the 
2012 coup is critical to Mali's capacity to control its porous borders 
and vast territory, counter terrorist influences and deny Al Qaeda in 
the Islamic Maghreb (AQIM) the ability to use northern Mali as a safe 
haven. In our meetings with civil society, it is clear that better 
security service delivery and access to justice will be a critical 
component to any effort to bring stability to the country. Through the 
Security Governance Initiative and other complementary programs, we 
will support the development of these critical security institutions, 
systems and processes to increase accountability and improve security 
and justice through transparent and responsive governance.

    Question. What is your assessment of security trends in the Sahel? 
How might U.S. counterterrorism efforts in Mali and the wider Sahel 
best be evaluated and prioritized?

    Answer. The continued presence and activities of al-Qaeda 
affiliates, including Al Qaeda in the Islamic Maghreb (AQIM), other 
armed extremists and transnational criminal groups in northern Mali, 
threatens both Mali and the broader Sahel region. Ensuring that Malians 
continue to reject extremist messages is a key focus of U.S. 
counterterrorism programming in Mali. Our ability to counter extremist 
influences depends on a skillful balance of programs designed to 
consolidate Malian democracy, support economic growth, deepen mutual 
understanding, promote moderate messages, and assist the Malian 
Government and local leaders to deliver basic services and counter the 
root causes of extremism.

    Question. Who is responsible for recent attacks against MINUSMA 
forces, and what factors are contributing to their increase? How might 
U.S. interagency coordination related to regional counterterrorism be 
improved?

    Answer. Al-Morabitun and the Movement for the Oneness and Unity of 
the Jihad (MUJAO), both groups with ties to Al Qaeda in the Islamic 
Maghreb (AQIM), have claimed responsibility for attacks against U.N. 
peacekeepers in Mali. Other armed extremists and transnational criminal 
groups, coupled with slow progress on national reconciliation between 
the Government of Mali and northern groups, have produced an 
increasingly insecure environment for the U.N. mission.
    We are working closely with the U.N. Department of Peacekeeping 
Operations (DPKO), the GOM, troop and police contributing countries 
(TCCs/PCCs) and other international partners to support the mission to 
better operate in this insecure environment and implement its robust 
mandate.
    U.S. Africa Command (AFRICOM) recently sponsored an asymmetric 
threat assessment team that traveled throughout the MINUSMA area of 
operations and is providing recommendations that may reduce peacekeeper 
vulnerability and contribute to IED threat mitigation. We are providing 
mine-protected combat vehicles for MINUSMA contingents and training 
peacekeepers how to use them, and exploring ways to support more C-IED 
training for troop contributing countries (TCCs).
    In close partnership with MINUSMA's U.N. Police (UNPOL) and the EU 
Police capacity-building mission (EUCAP), we have also conducted IED 
awareness seminars for the Malian National Police who work in northern 
Mali. Additionally, the ACOTA Program has provided Counter-IED training 
to TCCs trained and deploying to MINUSMA (Benin, Burkina Faso, Ghana, 
Niger, and Togo). During the 7-10 week battalion training, Counter-IED 
tasks relevant to an infantry battalion are integrated into command and 
staff, soldiers' skills and collective unit training.

    Question. Mali's current peace process has gotten bogged down. What 
more can the United States do to encourage a peaceful political 
resolution? If another deal is struck, what will you do differently 
than your predecessors to ensure that this next one, unlike the 
previous four peace deals, will stick?

    Answer. We are working, with our international partners, to 
encourage all parties to sign the Algiers agreement as soon as 
possible. We are also considering how the United States could most 
effectively support the implementation of this agreement by leveraging 
our diplomatic and development assistance resources.

    Question. Do we have the mix of civilian and military tools right 
in Mali? How will you, as chief of mission, ensure that U.S. civilian 
capabilities are not overshadowed by our military?

    Answer. We continue to emphasize that the only way to create a 
lasting peace in Mali is through a durable political agreement between 
the Government of Mali and the northern armed groups. Embassy Bamako's 
diplomatic outreach in support of the peace process is a whole-of-
government effort that emphasizes the importance of solidifying Mali's 
democratic transition and strengthening security sector institutions. 
We are beginning to implement robust civilian security engagement with 
the police and justice sector to improve these critical elements of a 
stable democracy.

                               __________

  Responses of Mary Catherine Phee, Nominated to be Ambassador to the 
  Republic of South Sudan, to Questions from Members of the Committee

                 ambassador-designate phee's responses 
                    to questions from senator corker
    Question. Does the United States agree with the 2014 African Union 
report that neither antagonist Riek Machar or Salva Kiir should serve 
in South Sudan's transitional government?

    Answer. The report referred to is a leaked document which the 
African Union disavowed in an official statement on March 16. Our view 
is that the two leaders need to make compromises to reach a peace 
agreement and form a transitional government that can accomplish 
essential transitional tasks such as holding elections for a permanent 
government and establishing a hybrid judicial body to promote 
accountability and justice.

    Question. How will U.S. influence on South Sudan's warring parties 
be affected by the expansion of the IGAD peace talks beyond IGAD member 
states?

    Answer. ``IGAD Plus,'' as proposed by IGAD Chairman, Ethiopian 
Prime Minister Hailemariam Desalgn, envisions additional leverage on 
the warring parties though enhanced international participation and 
cooperation, bolstering the negotiation efforts of the current IGAD 
leadership. This includes participation by the African Union, which has 
selected five African heads of state for this purpose, the Troika 
(United States, United Kingdom, and Norway), the U.N., the EU, and 
China.
    A reformed and reinvigorated ``IGAD Plus'' process would unite a 
number of stakeholders and members of the international community 
behind a common peace plan and gives international partners, including 
the United States, a larger role in shaping process and substance. The 
United States will continue to look for further opportunities to 
enhance the IGAD mediation process and will lead international efforts 
to bring additional pressure upon the parties to shift their concern 
toward the people of South Sudan, instead of their narrow political 
interests.

    Question. How do you assess the relationship between UNMISS 
peacekeepers and humanitarian organizations in fulfilling the 
protection of civilians mandate?

    Answer. UNMISS is mandated to protect civilians with support from 
its 11, 669-person strong military force. This U.N. mission has four 
priorities: protection of civilians, monitoring and investigating human 
rights, creating the conditions for the delivery of humanitarian 
assistance, and supporting the implementation of the Cessation of 
Hostilities agreement.
    UNMISS has established seven protection of civilian sites for 
internally displaced persons and is protecting nearly 113,000 IDPs in 
these sites. In tandem with humanitarian organizations, UNMISS is 
providing assistance to civilians at these sites as well as to those 
displaced elsewhere in the country. The partnership between UNMISS and 
the humanitarian organizations is vital and robust and we continue to 
encourage both sides to cooperate with these efforts.
    Recent troop deployments from Kenya, China, and Ghana will enable 
UNMISS to conduct its protection tasks more effectively, including 
patrols and proactive community engagement. Inadequate infrastructure, 
difficult weather conditions, and access challenges posed by the 
parties in conflict hinder UNMISS' ability to fully execute its 
mandate.

    Question. How will you ensure the United States does not enter into 
an agreement that perpetuates the failures of the 2005 CPA that left 
unresolved significant interethnic rivalries and challenges?

    Answer. Recalling the scale and devastation of the Sudanese civil 
wars, which exacted tremendous human cost over two decades, the CPA was 
a critically important accomplishment that ended the fighting. 
Unfortunately, the parties to the CPA did not implement many of the 
important provisions designed to build institutions that would 
facilitate development and good governance throughout Sudan and what is 
now South Sudan. If confirmed, I will work to encourage both parties to 
end the current conflict in South Sudan and establish a transitional 
government that begins to address these longstanding challenges. The 
primary criticism of the CPA is that the official parties lacked 
diversity and inclusivity. I will seek to engage all stakeholders and 
encourage their participation in developing broad-based institutions 
and sustainable development.

                               __________
                 ambassador-designate phee's responses 
                   to questions from senator menendez
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. I have had the opportunity to directly advance human rights 
and democracy in nearly every assignment in my career and expect deep 
engagement in such efforts in South Sudan, if confirmed.
    As a political reporting officer in Cairo, Egypt, from 1997-2000, I 
undertook path-breaking reporting on the government's treatment of the 
Coptic Christian community and relations between Copts and Muslims. I 
convinced USAID to transfer democracy and governance funds to the State 
Department and with those funds administered a small grants program 
that provided assistance to human rights advocates; significantly, 
these grants were not subject to prior approval from the Government of 
Egypt.
    Examples of the program's beneficiaries include activists working 
to combat female genital mutilation and those providing legal 
assistance to Egyptians who had been tortured. We also used these funds 
to support the travel of Egyptian activists to the United States to 
learn about American civil society and judicial processes. Several of 
the program's beneficiaries were active in the 2011 Arab Spring.
    While administering an occupied province of southern Iraq in 2003-
2004, I arranged for the establishment of a provincial council and 
municipal councils with reserved seats for women and religious 
minorities who were elected in caucuses from their communities. In 
explaining the purpose of reserved seats and the function of caucuses, 
I was able to educate local leaders who had no prior experience with 
inclusive participatory governance systems and to mobilize previously 
oppressed communities.
    Most recently, as deputy chief of mission in Addis Ababa from 2011-
2014, I arranged U.S. Government financial support for journalists 
fleeing the country who feared persecution, as well as for victims of 
Wikileaks. I chaired the mission's interagency working group on 
democracy and governance, and pioneered an innovative effort to create 
a dialogue between prominent American academics and senior Ethiopian 
party leaders about one party states in agrarian-based economies in 
East Asia (countries whose economic transformation Ethiopia seeks to 
emulate) which had chosen to liberalize politically in order to 
illustrate that democratization can bring stability and economic 
progress.

    Question. What are the most pressing human rights issues in South 
Sudan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in South Sudan? What 
do you hope to accomplish through these actions?

    Answer. The most pressing human rights issues are ending the war, 
promoting accountability and addressing the needs of those displaced by 
the conflict. If confirmed I intend to support efforts to hold 
accountable those who have committed human rights violations, abuses, 
and other atrocities in this conflict. We have pledged to work with the 
South Sudanese, the AU, regional partners, and the U.N. to promote 
accountability for abuses committed in this conflict.
    I will also support efforts to combat gender-based violence and the 
recruitment of child soldiers. I will promote the expansion of civic 
space for alternative voices and the role of a free press. I will reach 
out to local government officials, professional associations, civil 
society organizations, youth, women, and traditional leaders to promote 
human rights, democracy and the rule of law.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in South Sudan in 
advancing human rights and democracy in general?

    Answer. In South Sudan there is a history of impunity for human 
rights abuses and violations. South Sudan also lacks strong 
institutions capable of enforcing the rule of law. Building local 
capacity and facilitating reconciliation among the people of South 
Sudan is a long-term challenge and will require the consistent support 
of the friends of the South Sudanese.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the United States and with local human 
rights NGOs in South Sudan?

    Answer. If confirmed, I look forward to working with human rights 
groups and other nongovernmental organizations, both local and 
international. I will reinforce current U.S. engagement with civil 
society and other South Sudanese and international partners to promote 
human rights.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620 M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy in South Sudan as well as steps you would take to 
accomplish the goal of the law, namely, helping the Government of South 
Sudan end impunity for human rights violations by security forces.

    Answer. All U.S. Government assistance to the defense sector was 
suspended shortly after the outbreak of the current conflict. We remain 
concerned about the conduct of both the Government of South Sudan and 
opposition forces.
    The United States has urged the African Union Peace and Security 
Council to immediately release the report of the African Union's 
Commission of Inquiry, which was charged with developing findings 
regarding violations of international human rights and international 
humanitarian law committed during the armed conflict, and formulating 
recommendations on the best ways and means to ensure accountability, 
reconciliation, and healing. We are prepared to support mechanisms that 
advance these goals. When the parties achieve a lasting peace and we 
review the possibility of providing assistance for security sector 
reform, I will work to ensure that all relevant U.S. Government 
agencies and offices are working together and actively sharing 
information to ensure the Leahy law is being fully implemented.

    Question. The Special Envoy for Sudan and South Sudan has the lead 
role in directly engaging with the Intergovernmental Authority on 
Development and parties to the conflict in South Sudan as part of 
ongoing peace negotiations.

  <diamond> a. What is your role if any, in the peace process? In what 
        ways will you work to bring an end to the civil war?
  <diamond> b. In the event that the latest round of talks--reported to 
        be scheduled for some time in April--do not result in an 
        agreement, what next steps will the United States take to bring 
        about an end to the conflict?
  <diamond> c. How much information do ordinary citizens have about the 
        peace process, and how are their interests being represented in 
        negotiations?

    Answer. a. If confirmed, I, in coordination with the President's 
Special Envoy for Sudan and South Sudan, Ambassador Donald Booth, will 
steadfastly engage both parties on the need to make compromises and to 
come to a political agreement. I will also directly engage the people 
of South Sudan to promote peace and provide humanitarian assistance 
without regard to ethnic or political affiliation.
    b. The Intergovernmental Authority on Development (IGAD) is now 
moving ahead to prepare for a peace summit in the coming weeks, and has 
the critical task of engaging stakeholders and members of the 
international community to get behind a common peace plan. Ultimately, 
however, the decision to end this needless conflict lies with the 
warring parties. The United States will continue to look for further 
opportunities to enhance the mediation process and will lead 
international efforts to bring additional pressure upon the parties. We 
are in discussions with our partners in the region and the 
international community on how best to support upcoming talks, to 
increase pressure on the parties, and to widen international consensus 
to support the peace process if these talks fail.
    c. Given the high rate of illiteracy, and minimal internet 
penetration and newspaper circulation in South Sudan, radio broadcast 
is the most effective means to disseminate information. And more of 
this is needed. We are working with implementing partners to expand 
accurate live broadcast radio coverage of the mediation and to 
distribute peace messaging through local partners. We have pressed IGAD 
to include a broad range of opposition political parties, civil 
society, religious leaders, women, and youth and have provided direct 
support to civil society participants in the process so they can 
advocate for the South Sudanese people.

    Question. On March 24, Parliament voted to extend by 3 years 
President Kiir's term in office. Originally set to end on July 9, 2015, 
his mandate now expires in 2018.

  <diamond> What was the reasoning behind the extension of President 
        Salva Kiir's mandate, and what are the repercussions on the 
        peace process?
  <diamond> Could it affect former Vice President Riek Machar's 
        willingness to negotiate? How transparent was the process 
        through which the vote was debated and taken? What effects 
        might the extension of President Kiir's mandate have on the 
        development of democracy in South Sudan?

    Answer. The Government of the Republic of South Sudan has justified 
the extension of its tenure to 2018 to allow more time to achieve a 
peaceful settlement. However, this step by the legislature sends a 
negative signal about the government's commitment to a transitional 
government and for the development of democracy in South Sudan. This 
action has created another political grievance for the opposition. We 
have been clear that the way to extend legitimacy without elections is 
through a negotiated peace agreement in South Sudan and the 
establishment of a transitional government.

    Question. Administration officials, including Ambassador Booth in 
his testimony before the House Foreign Affairs Committee on February 
26, 2014, have stated that things must not ``return to business as 
usual'' which seemed to imply that a political solution among elites at 
the expense of justice and accountability for crimes committed is 
unacceptable.

  <diamond> Are there currently discussions in South Sudan about the 
        need for accountability for violations of human rights 
        committed during the course of the conflict?
  <diamond> What grassroots efforts are underway to promote justice, 
        accountability and reconciliation? Is the United States 
        supporting such efforts?

    Answer. Discussions about the need for accountability have taken 
place among those in the Government of the Republic of South Sudan, 
opposition forces, Intergovernmental Authority on Development (IGAD) 
mediators, and civil society groups. The U.S. Government has 
facilitated these discussions through its support for a 
multistakeholder peace process. The parties to the conflict have agreed 
on general provisions for a legal mechanism to prosecute those 
responsible for gross human rights abuses and violations, as well as a 
commission for truth, reconciliation, and healing, but no steps have 
been taken to put these into place absent a peace agreement. Justice 
and accountability are critical elements of a lasting peace.
    The United States is encouraging grassroots efforts by South 
Sudanese groups and individuals to promote justice, accountability, and 
reconciliation. For example, the Department of State is in the process 
of funding an in-country South Sudanese civil society-led project to 
investigate and document human rights abuses and violations.

    Question. There are reports that the Government of South Sudan is 
imposing burdensome bureaucratic obstacles such as arbitrary taxation, 
expulsion of staff, and a delay in issuing permits, that are making it 
difficult for nongovernmental organizations to provide humanitarian 
assistance. The United States has provided nearly a billion dollars in 
humanitarian assistance this fiscal year, and thus a strong interest in 
ensuring that the operating environment is conducive to efficient 
provision of assistance.

  <diamond> Are you aware of the reports of bureaucratic obstacles 
        imposed on organizations trying to carry out lifesaving 
        humanitarian operations in South Sudan? What will be your role 
        in helping to ensure they are able to carry out their work 
        without being harassed or otherwise impeded by government?

    Answer. I am aware of such concerning reports, including threats of 
expulsion of nongovernmental organizations (NGOs), harassment, 
abduction, detention, and expulsion of NGO workers, delays in visas and 
work permits, denial of tax exemptions, import delays, and bureaucratic 
delays in moving cargo by road, river, and air.
    If confirmed, I will engage all parties to press for immediate and 
unconditional access for humanitarian workers so they can deliver 
humanitarian assistance to all South Sudanese people in need. I will 
also work with other donor governments and organizations and the U.N. 
to help minimize the obstructions to humanitarian aid.
                 ambassador-designate phee's responses 
                    to questions from senator flake
    Question. Does the administration view South Sudan's oil revenues 
as contributing to the current conflict, and, if so, are sanctions 
against the oil sector being considered?

    Answer. We believe that the government revenues are largely being 
directed to security spending which makes the search for peace all the 
more urgent. At the same time, several factors have significantly 
decreased oil revenues for the government, which receives the majority 
of its income from oil. The conflict has caused a disruption in total 
oil production, which dropped from 220,000 barrels per day (bbl/d) in 
November 2013 to 150,000 bbl/d on average in 2014. The drop in the 
global price of oil has further reduced South Sudan's oil income. 
Production will only be restored to preconflict levels when the parties 
cease fighting and provide the security needed for critical repair and 
maintenance of oil infrastructure in South Sudan. We are not at this 
time considering sanctions against the oil sector.

    Question. What is the extent of the Ugandan military deployment in 
South Sudan? Are Ugandan forces playing an active role in the fighting? 
How does the Obama administration view Uganda's role in the conflict?

    Answer. At the request of President Salva Kiir, two brigades of 
Ugandan troops were deployed in December 2013 during the initial days 
of the conflict to protect key infrastructure and the city of Juba 
against opposition forces. Ugandan forces remain in South Sudan at the 
invitation of the government.
    The Agreement on the Cessation of Hostilities that was brokered by 
Intergovernmental Authority on Development (IGAD) mediators in January 
2014, and signed by both the Government of South Sudan and the 
opposition, calls for the withdrawal of foreign forces from South 
Sudan. The parties have subsequently rededicated themselves to the 
Agreement and we continue to press for its immediate implementation.
    We remain continuously engaged with the Government of Uganda to 
promote a common strategy for pressing the parties to stop the fighting 
and find a negotiated rather than a military solution to the conflict.

    Question. Given the role you will play in the peace process, how do 
you plan to maintain legitimacy with both sides involved in the 
conflict?

    Answer. The United States, in coordination with IGAD and our Troika 
partners Norway and the United Kingdom, has maintained the firm 
position that both parties are responsible for this conflict and the 
failure to reach peace. If confirmed, I, in coordination with the 
President's Special Envoy for Sudan and South Sudan Ambassador Donald 
Booth, will steadfastly engage both parties on the need to make 
compromises and to come to a political agreement. I would also directly 
engage the people of South Sudan to promote peace and provide 
humanitarian assistance without regard to ethnic or political 
affiliation.

    Question. In your testimony you note that the U.N. Security 
Council's March 3 resolution ``established a targeted sanctions regime 
and proposed an arms embargo that could be imposed should the South 
Sudanese leaders fail to respond to the mediation.''

  <diamond> Do you think the threat of sanctions will be seen as 
        credible by the parties and encourage them to reach a 
        compromise?
  <diamond> Are we able to identify significantly influential 
        individuals for sanctions in both camps?
  <diamond> What impact do you anticipate the arms embargo would have? 
        How would it the power balance in the conflict?

    Answer. The March 3rd U.N. Security Council's sanctions resolution 
allows for the imposition of asset freezes and travel bans on those who 
hinder the South Sudanese peace process or commit human rights 
violations. The resolution established a Sanctions Committee--which 
consists of all members of the Security Council--to review information 
regarding individuals and entities and designate them for sanctions. A 
U.N. Panel of Experts will be formed, which will help the committee 
gather and review information about those who may meet the sanctions 
designation criteria. Based on the findings of the Panel of Experts and 
our own findings, we will propose relevant individuals for 
consideration by the Sanctions Committee.
    The resolution's credible threat of sanctions increases pressure on 
the parties to resolve the outstanding issues and begin a process that 
establishes the Transitional Government of National Unity. This 
incremental approach hones the efficacy of measures imposed and ensures 
continued buy-in and support from IGAD regional leaders.
    Under this resolution, the Council has also committed to 
periodically review the situation in South Sudan and, as deemed 
necessary, consider additional measures, including an arms embargo. The 
U.S. Government believes that actions based on this resolution should 
be calibrated to maximize the Council's leverage to facilitate an end 
to the horrific violence and promote the beginning of a sustainable 
settlement. We believe that an arms embargo could pressure both parties 
to negotiate earnestly.

    Question. How would you assess the capacity of U.N. peacekeepers in 
South Sudan to protect civilians? Do UNMISS forces currently have the 
capacity to go out on patrols and engage armed actors, if civilians are 
under imminent threat?

    Answer. UNMISS is mandated to protect civilians with support from 
its 11,669-person strong military force. This U.N. mission has four 
priorities: protection of civilians, monitoring and investigating human 
rights, creating the conditions for the delivery of humanitarian 
assistance, and supporting the implementation of the Cessation of 
Hostilities agreement.
    UNMISS has created seven protection of civilian sites for 
internally displaced persons and is protecting nearly 113,000 IDPs in 
these sites. The mission works very closely with the humanitarian 
community that provides assistance to the IDPs in these sites. Recent 
troop deployments from Kenya, China, and Ghana will enable UNMISS to 
conduct its protection tasks more effectively, including patrols and 
proactive community engagement. Inadequate infrastructure, difficult 
weather conditions, and access challenges posed by the armed conflict 
hinder UNMISS' ability to fully execute its mandate.

    Question. What additional leverage would an ``IGAD Plus'' bring to 
bear?

    Answer. ``IGAD Plus,'' as proposed by IGAD Chairman, Ethiopian 
Prime Minister Hailemariam Desalgn, envisions additional leverage on 
the warring parties though enhanced international participation and 
cooperation, bolstering the negotiation efforts of the current IGAD 
leadership. This includes participation by the African Union, which has 
selected five African heads of state for this purpose, the Troika 
(United States, United Kingdom, and Norway), the U.N., the EU, and 
China.
    IGAD leadership has worked tirelessly to broker a comprehensive 
peace agreement. While the two sides have moved closer to a deal in 
recent months, neither has agreed to peace. A reformed and 
reinvigorated ``IGAD Plus'' process would unite a number of 
stakeholders and members of the international community behind a common 
peace plan and give international partners a larger role in shaping 
process and substance. Ultimately, however, the decision to end this 
needless conflict and to begin the process of reform and rebuilding of 
South Sudan lies with the warring parties. The United States will 
continue to look for further opportunities to enhance the mediation 
process and will lead international efforts to bring additional 
pressure upon the parties to shift their concern toward the people of 
South Sudan, instead of their narrow political interests.

                               __________

  Responses of Cassandra Q. Butts, Nominated to be Ambassador to the 
Commonwealth of the Bahamas, to Questions from Members of the Committee

                 ambassador-designate butt's responses 
                   to questions from senator menendez
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. At every stage of my adult life I am proud to have worked 
to advance the cause of human rights at home and abroad. As a college 
student, I was one of the organizers of an advocacy campaign to end the 
University of North Carolina at Chapel Hill's investments in 
corporations that did business in apartheid South Africa. Our campaign 
was successful, and the effort foreshadowed a path to the end of the 
apartheid regime in South Africa and the direction of my professional 
life.
    My first job following law school was a fellowship with the 
Georgetown Women's Law and Public Policy Program, where I worked as a 
lawyer to advance access to quality health care for the poorest 
communities at the National Health Law Program. My focus included 
addressing the particular challenges facing impoverished women of 
color, including the incarcerated. Our work advanced efforts to expand 
treatment for women of color with HIV/AIDS and to eliminate the 
practice of shackling incarcerated women while giving birth.
    As a lawyer on Capitol Hill, I worked on civil rights issues and 
issues related to migration, asylum, and refugees. In the latter 
category, I traveled the world to view conditions for migrants, asylum 
seekers, and refugees in conflict and post-conflict zones working with 
the Department of State, the United Nations High Commissioner for 
Refugees, and a range of international NGOs to find durable solutions 
for some of the most vulnerable populations in the world. Through that 
work, we were able to provide critical oversight and increase the 
number of individuals accepted into the U.S. refugee resettlement 
program.
    My work at Millennium Challenge Corporation (MCC) over the past 4 
years has focused on advancing the values of democracy and human 
rights. As the chairperson of MCC's Investment Management Committee, I 
have overseen and approved investments of over $8 billion with partner 
countries that must prove a measured commitment to policy performance 
in the area of democratic governance and human rights. In my role, I 
have traveled to partner countries to the importance democratic 
governance and human rights to the work of poverty reduction through 
economic growth. In addition, my work at MCC has focused on advancing 
the agency's work on gender equality, ensuring that women and men are 
equal beneficiaries of our program is an international model for how to 
best integrate gender equality in development assistance.
    Finally, as a lawyer at the NAACP Legal Defense Fund, the Nation's 
premier civil rights legal advocacy organization, I litigated civil 
rights cases on issues of voting rights and education. In addition, I 
advocated on Capitol Hill and within the executive branch for the 
expansion of a range of basic human rights for women and minority 
communities.

    Question. What are the most pressing human rights issues in the 
Bahamas? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the Bahamas? What 
do you hope to accomplish through these actions?

    Answer. The Bahamas has a strong tradition of protecting human 
rights. Bahamians enjoy freedoms of speech and religion, and Bahamian 
media is able to present the various sides of issues and frequently 
takes editorial positions critical of the government.
    The most pressing human rights concerns in the Bahamas center 
around the country's correctional and immigration detention facilities. 
Both are outdated, overcrowded, and do not meet the growing needs of 
the country. Local human rights organizations report of migration raids 
that ignore the rights of those they detain. The United States has 
provided training and technical assistance over the last 2 years under 
the Caribbean Basin Security Initiative (CBSI), which has improved 
conditions at the Bahamas Department of Correction's (BDOC) and 
enhanced BDOC's capacity to operate a sanitary, safe, and secure 
correctional facility in conformity with international standards.
    If confirmed, I will urge the government to take the steps 
necessary to improve conditions of detention and detention practices, 
both in terms of addressing immediate problems and in looking more 
systematically at modernizing and improving conditions over the medium 
to long term. I will also continue to apply U.S. assistance in these 
efforts where appropriate with the goal of bringing Bahamian facilities 
and procedures into full conformity with international human rights 
standards, practices, and procedures.
    Statelessness remains an issue, particularly in the case of second 
generation Haitian children born in the Bahamas who have access to 
neither Haitian nor Bahamian citizenship at birth. I commend the 
Bahamian Government for proposing a constitutional amendment allowing 
for Bahamian citizen women married to non-Bahamian husbands to pass on 
their Bahamian nationality to their children. Statelessness is also a 
concern for migrant children born in the Bahamas who, according to the 
constitution, have the right to apply for Bahamian citizenship at age 
18. The process to acquire citizenship is cumbersome and complex, and 
if confirmed, I will urge the government to both simplify the process 
and pass the constitutional amendment on gender equality before the end 
of 2015.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Bahamas in 
advancing human rights and democracy in general?

    Answer. Although considered a ``high income'' country by the World 
Bank, the Bahamas faces significant resource constraints which make 
building new detention centers or expanding existing facilities 
challenging. In addition to resource problems, the country also faces 
significant challenges in its judicial system. Despite some recent 
improvements, criminal cases can be prolonged, and a lengthy appeals 
process often adds additional time after a trial before a case is 
finalized.
    Societal and structural issues present the largest challenges to 
advancing human rights and democracy in general. The Bahamian 
Constitution protects against discrimination due to race, but societal 
prejudices exist, especially with regard to the Haitian immigrant 
community. The Bahamian Constitution and law currently do not prohibit 
discrimination based on gender, sexual orientation, or gender identity, 
and certain gender inequalities exist with regard to citizenship. The 
Christie administration has introduced constitutional amendments that 
would largely correct these deficiencies, but the process has stalled. 
If confirmed, I will continue to advocate for improvements to the 
justice sector and promote nondiscrimination and nonviolence toward 
vulnerable groups.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the United States and with local human 
rights NGOs in the Bahamas?

    Answer. If confirmed, I will maintain a regular dialogue on human 
rights with all stakeholders, including human rights and other NGOs in 
the United States and local human rights NGOs in the Bahamas. In 
addition, if confirmed, I will engage in a frank dialogue with Bahamian 
officials on human rights issues, which will include bringing specific 
concerns to the attention of the government when it is appropriate to 
do so.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy in the Bahamas as well as steps you would take to 
accomplish the goal of the law, namely, helping the Government of the 
Bahamas end impunity for human rights violations by security forces.

    Answer. If confirmed, I will continue Embassy Nassau's current 
practice of ensuring that all Bahamian candidates for U.S. assistance 
are fully vetted in conformity with State Department and Defense 
Department procedures before any assistance is provided. I will ensure 
that the Embassy is diligent in denying assistance to Bahamian security 
force units when we have credible information that such units have 
committed gross violations of human rights. I will also press the 
Bahamian Government to establish an appropriate and transparent process 
to investigate allegations that government officials have engaged in 
human rights violations and to hold accountable those found to have 
done so.

                               __________
                ambassador-designate butts's responses 
                    to questions from senator flake
    Question. What do you see as the most significant challenges in 
relations with the Bahamas? What would be your priorities if confirmed 
as Ambassador?

    Answer. The United States and the Bahamas enjoy a long-standing 
cooperative relationship and security partnership. As one of our 
closest neighbors, our shared interests include improving citizen 
security and promoting shared prosperity through trade.
    If confirmed, I hope to continue working with the government of the 
Bahamas on efforts to strengthen citizen security, promote social and 
economic development, including advancing U.S. trade and investment 
interests, and reduce crime, including illicit trafficking and other 
transnational crime. If confirmed, I will encourage the Bahamas to take 
a more systemic approach to address the worsening crime situation. I 
hope to support efforts by the Bahamas to improve the education system 
and look at opportunities for workforce development. Other key 
priorities will be economic development and growth, including the 
attendant energy and environmental issues. Finally, I will ensure that 
the entire U.S. mission in the Bahamas--Bahamians and Americans--
understands that their contributions are valued and that they are 
appreciated.

    Question. The Bahamian economy was hard hit by the global financial 
crisis and has only registered meager economic growth rates over the 
past 3 years. What is the outlook for the Bahamian economy over the 
next few years? Is there any prospect that the Bahamas will diversify 
its economy beyond tourism and financial services?

    Answer. The Bahamas economy is projected to see real growth rise 
steadily to 2.8 percent by 2016 based on IMF forecasts. The government 
anticipates additional revenue from the new value-added tax that became 
effective on January 1, 2015, and the licensing and regulation of local 
gaming operations later in 2015. The Bahamas also expects economic 
boost from continued economic improvement in the United States, which 
is the Bahamas' largest trading partner and source of tourism dollars.
    The Bahamian Government faces significant challenges in 
diversifying its economy beyond tourism and financial services in the 
near future. New investments in the light manufacturing and technology 
sectors are hindered by high energy prices and limited availability of 
skilled labor. The government continues to promote investment in 
nontraditional sectors outside of tourism and financial services, and 
is also making efforts to promote the agriculture sector in an effort 
to mitigate the high cost of importing food. The government also has 
announced plans to offer new products within the financial services 
sector, such as the development of an international arbitration center 
and an offshore clearing and settlement center for international 
currencies, in the hopes of attracting greater trade and investment to 
the country.

    Question. U.S.-Bahamian cooperation on drug interdiction has been 
strong. Are there any further actions that the Bahamian Government can 
undertake to improve its antidrug efforts?

    Answer. The United States and the Bahamas enjoy a long-standing 
history of counternarcotics cooperation, most notably under the Drug 
Enforcement Administration (DEA) led Operation Bahamas, Turks and 
Caicos (OPBAT). Under OPBAT, DEA Special Agents coordinate, in an 
integrated manner, with the Royal Bahamas Police Force (RBPF) and the 
Royal Bahamas Defense Force (RBDF) to gather intelligence, conduct 
investigations, and execute interdictions. OPBAT seizure operations 
increased substantially between FY 2012 and FY 2014. We believe this is 
due, in part, to increased U.S. support, cooperation, and equipment.
    The Bahamian Government could impose stricter penalties on 
individuals convicted of serious drug offenses. In addition, the 
Bahamas continues to be challenged by delays in trials and in 
responding to U.S. extradition requests. Improved procedures to 
expedite extraditions would bring drug crime offenders more quickly to 
trial and serve as a more credible deterrent for traffickers. The 
Bahamas National Anti-Drug Strategy places significant emphasis on drug 
abuse, awareness, demand reduction, and treatment policies, but 
programs in these fields would benefit from additional resources. In 
addition, health care professionals report that women and residents of 
the Family Islands (i.e., islands other than New Providence) are 
underrepresented in substance abuse prevention and treatment programs.

                               __________

 Responses of Katherine S. Dhanani, Nominated to be Ambassador to the 
Federal Republic of Somalia, to Questions from Members of the Committee

               ambassador-designate dhanani's responses 
                    to questions from senator corker
    Question. What considerations, apart from the holding of elections, 
were taken into account when recognizing Somalia as a sovereign state 
in 2012? What additional considerations have been identified as crucial 
in moving to the nomination of an ambassador?

    Answer. U.S. recognition of the Federal Government of Somalia (FGS) 
on January 17, 2013, was the first step toward normalizing the U.S.-
Somalia bilateral relationship. The decision was in large part due to 
the relatively credible political transition after more than a decade 
of transitional governments. The provisional constitution and 
Parliament forged from the 2012 transition were the first steps toward 
rebuilding a sovereign Somali state. Recognizing the FGS signaled U.S. 
commitment to sustained diplomatic engagement with Somalia.
    The Department's decision to seek a Presidential Appointment of an 
ambassador was in recognition of the growing interagency engagement 
toward Somalia. Between FY 2006 and FY 2014, State and USAID provided 
nearly $3.1 billion in development, security, education, and 
humanitarian assistance. The level of U.S. assistance underscored the 
need to coordinate our Somalia engagement under an ambassador, to 
ensure that our relationship with the FGS best reflects our broad range 
of national security and foreign policy interests.

    Question. What specific parameters, including political 
reconciliation and security concerns, will be required by the United 
States to warrant a move of the Office of Somali Affairs/U.S. Embassy 
for Somalia in Nairobi, from its current location to Somalia? What is 
the best estimate or U.S. expectation of a move of our mission to 
Somalia? Would it be to Mogadishu in every instance or is there an 
intermediate location elsewhere?

    Answer. The Department of State does not have permanent diplomatic 
presence in Somalia due to continued instability and the high-threat 
environment in Mogadishu. After the December 25, 2014, al-Shabaab 
attack on the Mogadishu International Airport (MIA) compound, the 
Department is assessing what security upgrades need to be made to 
bolster MIA perimeter security and the internal compound utilized by 
U.S. diplomats. As security conditions permit, we look forward to 
broadening and deepening our engagement, and to reestablishing a 
permanent diplomatic presence in Mogadishu. As I mentioned in my 
testimony, there is no fixed timeline for the establishment of a 
permanent diplomatic presence in Mogadishu, but if confirmed, I will 
carefully monitor the security environment in Somalia and make the 
recommendation for a more enduring U.S. presence in Mogadishu, when the 
environment permits.

    Question. How do the positions of U.S. Special Representative for 
Somalia and Ambassador to Somalia differ, if at all? Will the role of a 
U.S. Special Representative be necessary upon the confirmation of an 
ambassador, and if so, what role will the SE play?

    Answer. The U.S. Special Representative for Somalia (SRS) is a 
secretarial appointee who manages the Department's relationship with 
the Federal Government of Somalia. The SRS, resident in Nairobi, also 
engages regional governments on Somalia--Burundi, Djibouti, Ethiopia, 
Kenya, and Uganda--given their national security interests in Somalia 
as troop contributing countries. The SRS does not have authority to 
direct and coordinate the actions of U.S. executive branch agencies in 
Somalia. As chief of mission, unless otherwise directed by the 
President, the U.S. Ambassador to Somalia will have full responsibility 
and authority for the direction, coordination, and supervision of all 
U.S. Government executive branch activities, operations, and employees 
in Somalia. The role of SRS will no longer be needed as the U.S. 
Ambassador to Somalia will maintain the regional coordination role 
given the level of international engagement in Somalia.

    Question. Yemen may prove a cautionary tale. In view of the 
unsuccessful efforts of significant U.S. military assistance and 
operational emphasis in Yemen to withstand political and militant 
unrest and in view of the ensuing instability, how will U.S. policy 
integration and coherence across USG agencies address current parallel 
efforts similar to those that existed in Yemen? What specific mechanism 
exists to harmonize U.S. policy governmentwide in moving Somalia toward 
sustainable governance and greater stability than it has had in 
decades? How will the U.S. role in partner efforts to help reestablish 
a viable government for Somalia change with an ambassador?

    Answer. U.S. policy in Somalia directly links security sector 
reform to political progress. Our Somalia strategy, previously shared 
with Congress, includes ways in which political development and 
security progress must move in tandem. U.S. policy is harmonized 
governmentwide through the White House directed interagency policy 
coordination process, and with our international partners via the New 
Deal Somali Compact.
    The United States and international partners support a regional 
force, the African Union Mission to Somalia (AMISOM), that enjoys broad 
international and regional support. AMISOM is composed of African troop 
contributors that have a strategic interest in stabilizing Somalia and 
as a result have initiated a number of military operations designed to 
pressure and erode al-Shabaab. AMISOM also has provided critical time 
and political space so the Somali political process can gain strength 
and the Federal Government of Somalia can begin to build a 
representative, apolitical, human rights respecting, professionally 
trained force under civilian oversight.
    In Yemen, there was no international or regional force like AMISOM 
that provided Yemen's leaders the time and space to find a peaceful 
solution to Yemen's political crisis, while at the same time 
maintaining security and putting pressure on al-Qaeda in the Arabian 
Peninsula.

    Question. What is the status of Somaliland and Puntland as it 
relates to U.S. policy? How do you expect the status to change, if at 
all, in the near to mid-term? What are your priorities for working with 
Somaliland and how will this translate into engaging Somalia?

    Answer. The United States recognizes a single Somalia, which 
includes Somaliland and Puntland. We are encouraged by the progress 
made in the integration of Puntland into the federal state formation 
process. While progress has stalled in regards to the formal, Turkey-
sponsored talks between Somaliland authorities and the Federal 
Government of Somalia (FGS), we continue to encourage dialogue between 
both parties.
    The United States regularly engages with all levels of the Somali 
Government, including the FGS, the newly established interim regional 
administrations, and the authorities in Puntland and Somaliland. If 
confirmed, my priorities at the regional level will be to promote 
security, good governance, and economic development, as well as to 
advance the state formation process.

    Question. The implementation of Vision 2016 is behind schedule. How 
will you apply pressure on the Somalia Government to complete the plan?

    Answer. While implementation of Vision 2016 is behind schedule, the 
Federal Government of Somalia (FGS) has made significant and important 
progress, especially in regards to advancing the state formation 
process. That said, time is short and the FGS has itself acknowledged 
that Vision 2016 is behind schedule.
    If confirmed, I will engage extensively with the President, Prime 
Minister, parliamentarians, and the regional governments, in close 
collaboration with our international partners, to push for a renewed 
focus on accelerating implementation of 
the Vision 2016 reform agenda. It is of paramount importance that the 
FGS move swiftly this year to lay the foundations for credible, 
democratic, and inclusive national elections in 2016, as well as for a 
constitutional referendum as envisioned by Vision 2016. The United 
States will maintain close engagement with the international community 
to ensure we have a coordinated approach to support the Somalis as they 
work towards 2016.

    Question. How will East Africa region's instability and the 
drawdown of Embassy personnel in Nairobi, Kenya, affect the movement 
and accessibility of the U.S. Ambassador to Somalia to travel and 
conduct business with the Government of Somalia, its citizenry and U.S. 
programming in Somalia while operating from Nairobi?

    Answer. The Somalia Unit, comprised of 21 personnel, was deemed to 
be of such strategic importance it was not reduced in size during the 
July 2014 drawdown of Embassy personnel in Nairobi, Kenya. The drawdown 
did not reduce staffing or programming operations of the Somalia Unit. 
If I am confirmed, the Department will transition the Somalia Unit to 
U.S. Mission Somalia and is in the process of determining the 
accompanying staffing footprint. As security conditions permit, U.S. 
officials will maintain regular travel into Somalia to conduct official 
business and promote our foreign policy objectives.
                                 ______
                                 
              ambassador-designate dhanani's responses to 
                    questions from senator menendez
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. Throughout my career, I have advanced U.S. interests in the 
promotion of human rights. In my current assignment in the Africa 
Bureau, I lead the office responsible for coordinating the Bureau's 
efforts to promote human rights throughout the continent. Our 
activities include, for example, ensuring that recipients of security 
assistance have clean human rights records; promoting atrocity 
prevention; promoting fair, credible, and peaceful elections; and 
defending the human rights of LGBT persons. We coordinate the Country 
Reports on Human Rights Practices, Trafficking in Persons Reports, and 
International Religious Freedom Reports for African countries. As 
consul general in Hyderabad, India, my team's activities included 
partnering with the private sector to sponsor training for disabled 
adults, promoting local nongovernmental organizations' projects to 
economically empower women in lower income Muslim communities, 
supporting efforts to combat HIV/AIDS stigma, and persuading local 
police to rescind an order banning a rainbow film festival. In Gabon 
our human-rights-related activities included a public program 
highlighting abuses committed as part of rituals to enhance political 
success and in Zambia we were particularly active in responding to the 
humanitarian needs of refugees, including projects aimed at protecting 
teenage refugee girls from sexual abuse and exploitation.
    My actions to promote human rights were particularly important 
during my service as deputy chief of mission in Zimbabwe. The U.S. 
Embassy's programs directly assisted thousands of Zimbabweans whose 
human rights were abused by the regime, and our efforts to expose abuse 
changed the course of events surrounding the 2008 election. When U.S. 
Government-supported election monitoring made stealing the election 
impossible during a first round of voting, the Government of Zimbabwe 
launched a campaign of violence and intimidation to ensure that the 
ruling party would prevail during a runoff. The U.S. mission in 
Zimbabwe already supported a network of partners to provide medical 
care, psychological counseling, and legal counsel to victims of torture 
and other human rights abuses. When the scale and severity of abuse 
expanded dramatically, we led an international effort to protect 
victims and expose abusers. In addition to supporting shelters and 
services for internally displaced persons (IDPs), we interviewed scores 
of individuals who had been beaten and burned out of their homes to 
identify individuals at risk of further political persecution for 
targeted support. The Embassy led the diplomatic community in visits to 
torture camps, defying police roadblocks. On July 3, 2008, hundreds of 
IDPs who had been forced to leave a shelter arrived at the U.S. Embassy 
seeking refuge. We scrambled to identify alternative shelters for the 
women and children, and provided blankets and hot meals for over 150 
men that winter night. The USAID Director and I spent July 4 
identifying and setting up a shelter on a farm outside the city, where 
we identified partners able to meet the IDPs' basic needs in the 
ensuing weeks. Independent media and watchdog groups who enjoyed our 
support provided us with documentation of the regime's abuses which we 
shared throughout the region, convincing Zimbabwe's neighbors that this 
time they could not turn a blind eye to the Mugabe regime's crimes. As 
a result, the ruling party recognized that it would be unable to steal 
the runoff, and invited the opposition into a coalition.
    I was proud to lead the team at U.S. Embassy Harare who 
demonstrated the tremendous compassion and empathy of the American 
people under the most trying circumstances, making a difference in both 
the lives of individual Zimbabweans and the course of public events.

    Question. What are the most pressing human rights issues in 
Somalia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Somalia? What do 
you hope to accomplish through these actions?

    Answer. If I am confirmed, working with the African Union, 
Government of Somalia, and Somali civil society to improve protection 
of civilians will be central to my engagement. Violence against women 
and girls, including rape, remains a pervasive problem. I will work 
with Somali and international counterparts including AMISOM to improve 
protection efforts, including ensuring that women can access the 
services they need and perpetrators are held accountable. I am also 
deeply concerned about the situation of media freedom in Somalia. The 
country remains one of the most dangerous places to be a journalist. I 
will regularly discuss protection concerns with Somali journalists 
themselves, speak out against abuses against journalists, and strongly 
encourage the Somali Government to fully respect freedom of expression. 
In addition, I will work with Somalia and the United Nations to further 
implementation of Somalia's action plan to end the use and recruitment 
of child soldiers and standardize operating procedures for the 
reception and handover of children separated from armed groups.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Somalia in 
advancing human rights and democracy in general?

    Answer. Key challenges to addressing human rights concerns in the 
country include continued insecurity in al-Shabaab-controlled portions 
of the country. This limits not only U.S. Government access to much of 
the country, but also access by international and local partners who 
could provide information that is vital to addressing human rights 
concerns. Human rights organizations have identified the lack of data 
on the situation in much of the country as problematic.
    Improving civilian protection while conflict continues is extremely 
challenging, but it will be central to my efforts. Attacks, including 
direct attacks on civilians, continue to result in deaths, injuries, 
and displacement. Somali women and girls experience systematic 
marginalization, which makes it difficult to address gender-based 
violence and sexual exploitation. Women are reluctant to report abuse 
due to possible reprisals, and police are reluctant to investigate. The 
Government has arrested alleged rape victims. Authorities rarely used 
formal procedures to address rape. Improving protection for journalists 
is challenging in part due to the continued insecurity and presence of 
al-Shabaab. Also challenging is that the Government of Somalia and 
regional authorities continue to arrest, detain, and prosecute 
journalists. In regards to child soldiers, the government has taken 
additional steps to implement its action plan with the U.N., though, 
overall, implementation of the plan has been limited. More also needs 
to be done to improve demobilization, rehabilitation, and reintegration 
efforts for children separated from armed groups.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the United States and with local human 
rights NGOs in Somalia?

    Answer. If confirmed, one of my most important goals as U.S. 
Ambassador to Somalia will be improving respect for human rights in the 
country, so that all Somalis have the opportunity to exercise their 
fundamental freedoms and live their lives without fear. My efforts will 
include those focused on improving civilian protection, strengthening 
efforts to address rape, building respect for media freedom, and 
ensuring that children are not used as soldiers. Human rights and other 
NGOs are critical to this work and I look forward to meeting with them, 
if I am confirmed.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy as well as steps you would take to accomplish the goal of 
the law, namely, helping the Government of Somalia end impunity for 
human rights violations by security forces.

    Answer. The Leahy laws are based on a basic principle: A government 
security apparatus' respect for human rights bolsters its legitimacy 
and trustworthiness in the eyes of the people it is supposed to 
protect, and enhances its ability to protect. Moreover, holding 
violators accountable fortifies the rule of law, which will be key in 
our efforts to improve governance in Somalia. If confirmed, the Embassy 
staff and I will convey this message in all our interactions with the 
FGS. In terms of implementation, the Embassy and the Department vet all 
individuals and units of the security services; if confirmed, I will 
ensure that our vetting continues to be comprehensive, thorough, and in 
full compliance with the Leahy laws, and that those who violate human 
rights are restricted from training. Furthermore, I will strongly urge 
the FGS to hold all violators accountable for their actions.

    Question. In your written testimony, you mention the importance of 
building Somali institutional capacity. The U.S. Government has spent 
considerable time and resources in training the Somali national army as 
part of its Somalia strategy. The U.S strategy toward sub-Saharan 
Africa states that as part of security sector reform, the United States 
will build security forces that ``are subordinate to and operating 
jointly with their constitutional civil authorities.''

  <diamond> a. What programs are currently underway to build up the 
        civil authorities in Somalia? What is the status of current 
        efforts to build the capacity of the Somali Ministry of 
        Defense? What plans do we have to build capacity in the 
        judiciary and civilian oversight organizations that can provide 
        oversight of the Somali National Army?

    Answer. The United States has supported the development of the 
Ministry of Defense (MOD) by refurbishing the MOD headquarters at 
Gashandiga in Mogadishu, as well as providing a contract advisor who 
works with the Defense Minister at the MOD on a daily basis. Other 
donors are also participating in the effort to build the capacity of 
the MOD, including the European Union. We intend to expand our support 
to the MOD in the coming years, to include additional training, 
advisory support, and material support. Our assistance will reflect the 
absorptive capacity of the MOD, and complement the efforts of other 
donors. We are designing this support in coordination with other donors 
to strengthen civilian oversight of the military sothat respect for 
human rights and inclusivity become well entrenched.

  <diamond> b. What tools were used to assess the requirements of the 
        Somali National Army and what is the plan for monitoring and 
        evaluating our current efforts in keeping with the policy 
        guidelines contained in Presidential Policy Directive 23?

    Answer. Defining the requirements of the Somali National Army (SNA) 
has been an iterative process involving inputs and analysis from across 
the U.S. interagency, the AU Mission to Somalia (AMISOM), other donors 
involved in the effort to develop the SNA, U.S.-funded advisors 
embedded with the SNA and MOD, and, most importantly, the Somalis 
themselves. Program monitors in Mogadishu, augmented by U.S. Government 
personnel's visits, ensure programming is being provided in line with 
U.S. Government regulations and objectives.

  <diamond> c. How is the United States coordinating with other donors 
        in the security sector?

    Answer. U.S. support to the Somali security services is coordinated 
by regular working group meetings within the framework of the New 
Deal's Peacebuilding and Statebuilding Group Two (PSG-2). PSG-2 and the 
subworking groups that fall under it, is the primary vehicle for 
coordinating international community support directly with the Federal 
Government of Somalia, the U.N., the AU, and other partners.

  <diamond> d. What is the administration doing to build government 
        capacity to administer or provide social services in Mogadishu 
        and areas which have been liberated from al-Shabaab?

    Answer. The United States is helping the Federal Government of 
Somalia (FGS) define, coordinate, and manage the frameworks for 
national programs within the Office of the President, National Security 
Advisor, and the Ministry of Interior and Federalism. We support the 
Federal Government of Somalia to increase inclusiveness of political 
processes and facilitate the delivery of critical services in newly 
liberated areas, including training national and regional Parliaments 
to increase their oversight role through the Transition Initiatives for 
Stabilization from USAID. The United States helped the FGS understand 
the utility of initiating local-level reconciliation and civic 
dialogues in areas liberated from al-Shabaab, as a means to prevent new 
conflicts from erupting in the aftermath of liberation.
    In FY 2014, the administration provided more than $58.3 million in 
development assistance to Somalia to promote peace and stability, 
foster good governance, spur economic growth and job creation, improve 
transparency and accountability, support institutional development, and 
increase the responsiveness of government institutions at the federal, 
regional, and local levels. The United States is supporting Somalia's 
Ministry of Education to help develop an Education Sector Strategic 
Plan. Development of this national plan will build government capacity 
to deliver improvements in educational quality and services across the 
country.

    Question. Regarding the Somali Federal Government's Vision 2016 
agenda, you mentioned that many deadlines have already been missed and 
that the international community continues to encourage the federal 
government to adhere to the roadmap.

  <diamond> a. What is the status of constitutional development in 
        Somalia?

    Answer. The Somali parliamentary constitutional review committee 
has begun to advise the recently established Independent Constitutional 
Review Implementation Commission (IRIC), on chapters one and four of 
the constitution which address the critical issues of the status of 
Mogadishu in the state formation process and the electoral law. The 
Speaker of Parliament informed us that he intends to expedite the 
review process during the next session of Parliament (technically 
scheduled to open the week of April 20).

  <diamond> b. What is the status of discussions about federalism and 
        the integration of semiautonomous regions such as Somaliland?

    Answer. The state formation process to build a federal system in 
Somalia is currently underway. Interim administrations, precursors to 
formal federal states, are now in place in Jubbaland and the South West 
region, and a reconciliation process is currently underway in the 
central regions. The Federal Government of Somalia and Puntland signed 
an agreement in October 2014 to pave the way for Puntland's recognition 
as a federal member state. To accelerate the federalism process, 
Mogadishu and the regional leaders recently created the Somali 
Leadership Forum to discuss key issues, including regional security 
force integration, 2016 elections, and the state formation process. 
Somaliland maintains its unilaterally declared independence from 
Mogadishu, but has engaged in Turkish-sponsored talks on issues 
requiring cooperation, such as airspace management.

                               __________
               ambassador-designate dhanani's responses 
                    to questions from senator flake
    Question. What are the prospects for Somalia to hold elections as 
expected in 2016? Given the political infighting and insecurity, will 
it be possible to hold a nationwide constitutional referendum and 
elections next year?

    Answer. The United States continues to support the Federal 
Government of Somalia's Vision 2016 agenda, which includes holding 
national elections in 2016. The Federal Government of Somalia (FGS) 
itself has acknowledged that Vision 2016 is behind schedule. We 
consistently urge the FGS to accelerate the pace of reform and to put 
in place the institutions, laws, and processes necessary to meet its 
Vision 2016 goals.

    Question. Given that the current central government was largely 
appointed and selected to overcome internal rivalries, do you think 
these elections will be viewed as credible and legitimate in the eyes 
of the Somali people?

    Answer. The United States supports Somalia's state formation 
process, currently underway, which will lay the foundation for a more 
representative government. We continue to urge the Somali Government to 
begin the process to review the interim constitution and present a 
final version for its citizens to approve in a national referendum by 
early 2016. USAID's democracy and governance program in Somalia 
strengthens regional and national parliaments to perform oversight and 
to develop legislation, particularly as regards the legal framework 
necessary for credible and legitimate referenda and electoral 
processes. If confirmed, I will continue to press the Government of 
Somalia urgently to take steps toward inclusive and democratic 
elections. As Somalia continues to develop inclusive political 
institutions, its leaders must support the ability of citizens to 
choose their own government through periodic free and fair elections.

    Question. How would you characterize al-Shabaab's relationship with 
al-Qaeda, Al Qaeda in the Arabian Peninsula, and the Islamic State, 
respectively?

    Answer. Al-Shabaab publicly announced its merger with al-Qaeda in a 
February 2012 statement in which they pledged loyalty to al-Qaeda 
leader Ayman al-Zawahiri. Al-Shabaab is not related to ISIS, although 
there have been reports of ethnic Somalis, not affiliated with al-
Shabaab, fighting alongside extremist groups in Syria and Iraq. Al 
Qaeda in the Arabian Peninsula, like al-Shabaab, is an al-Qaeda 
affiliate.

    Question. What is the anticipated timeline for establishing an 
embassy in Mogadishu? What are the challenges with the current system, 
in which U.S. diplomats and USAID personnel travel back and forth from 
Kenya?

    Answer. We look forward to broadening and deepening our engagement 
and to reestablishing a permanent diplomatic presence in Mogadishu. 
Currently, chief of mission personnel travel to Mogadishu and other 
locations in Somalia as security conditions permit. Establishment of a 
permanent diplomatic presence in Mogadishu will represent the 
culmination of this recognition process, but there is no fixed timeline 
for achieving this objective.

    Question. The State Department budget justification includes a 
request for $110 million to support African Peacekeeping Rapid Response 
Partnership (APRRP). According to the CBJ, the program would ``build 
rapid peacekeeping response capabilities in Ethiopia, Ghana, Rwanda, 
Senegal, Tanzania, and Uganda.''

  <diamond> (a). How does this proposal compare to existing training 
        programs, including African Contingency Operations Training and 
        Assistance (ACOTA) Program?

    Answer. APRRP assistance will complement but not replace existing 
peace operations capacity-building programs, such as the Global Peace 
Operations Initiative (GPOI), the Africa Contingency Operations 
Training and Assistance (ACOTA) program (which is funded predominantly 
through GPOI), and the International Police Peacekeeping Operations 
Support (IPPOS) program. GPOI and IPPOS emphasize broader, global 
capacity-building efforts focused on addressing a wider range of 
international peace operations shortfalls and strengthening the 
effectiveness of U.N. and regional missions. APPRP partners have and 
may continue to receive training through these other programs as well.

  <diamond> (b). How would you see the program impacting troop 
        contributing countries effectiveness in ongoing operations?

    Answer. APRRP will focus on developing the capabilities of partner 
nations to deploy forces rapidly in support of an AU or U.N.-mandated 
operation. APRRP will inject targeted resources to address specific 
gaps in peacekeeping rapid response capabilities in the selected 
partner countries. With this specific goal in mind, APRRP works with a 
set of proven partners to emphasize training and provision and 
maintenance of equipment to enable rapid deployment and sustainment. 
While facilitating rapid deployment is the primary focus of the 
program, we anticipate that the improved specialty capabilities and 
institutional capacity provided through APRRP have the potential to 
benefit ongoing operations as well.

  <diamond> (c). As you know, reports implicated Ugandan and Burundian 
        troops participating in AMISOM of raping civilians. Would APPRP 
        include modules aimed at protecting civilians? Would, if not 
        how, do you guard against reputational risk to the U.S. from 
        being associated with their training?

    Answer. We are greatly concerned about the reports of sexual 
exploitation and abuse by AMISOM forces. The United States immediately 
engaged with the African Union and the Governments of Uganda and 
Burundi to urge them to undertake a credible and transparent 
investigation into the alleged incidents immediately. Ugandan and 
Burundian forces deploying to AMISOM currently receive substantial 
training related to human rights and protection of civilians through 
the Africa Contingency Operations Training and Assistance (ACOTA) 
program and counterterrorism training funded through section 2282. We 
are continuously looking at ways to improve this training, including in 
response to the reports of sexual exploitation and abuse. That training 
will need to focus not only on increased awareness of sexual 
exploitation and abuse, but also on improving the capacity of the 
contingents to investigate allegations and hold perpetrators 
accountable.
    We intend to keep APRRP focused on developing specialized 
capabilities and enabling units required to facilitate rapid deployment 
(including logistics, engineering, equipment maintenance, transport, 
intelligence, and medical capabilities), and, therefore, we do not 
expect protection of civilians to be a primary focus of the APRRP-
funded training events. This is not because protection of civilians is 
unimportant, but rather because these topics are already being 
addressed through the existing predeployment training initiatives 
funded through the Global Peace Operations Initiative (like ACOTA) and 
section 2282. We intend APRRP to complement, not replace existing 
training initiatives.

                               __________


                              NOMINATIONS

                              ----------                              


                         TUESDAY, MAY 19, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Mileydi Guilarte, of the District of Columbia, to be United 
        States Alternate Executive Director of the Inter-
        American Development Bank
Jennifer Ann Haverkamp, of Indiana, to be Assistant Secretary 
        of State for Oceans and International Environmental and 
        Scientific Affairs
Marcia Denise Occomy, of the District of Columbia, to be United 
        States Director of the African Development Bank for a 
        term of five years
Sunil Sabharwal, of California, to be United States Alternate 
        Executive Director of the International Monetary Fund 
        for a term of two years
Brian James Egan, of Maryland, to be Legal Adviser of the 
        Department of State
                              ----------                              

    The committee met, pursuant to notice, at 2:45 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John 
Barrasso, presiding.
    Present: Senators Barrasso, Corker, Gardner, Udall, Cardin, 
Murphy, and Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, good afternoon. Congratulations. I 
would like to call to order this hearing of the United States 
Senate Committee on Foreign Relations.
    The committee is meeting today to examine the nomination of 
five individuals to serve our country's interests in 
international financial institutions in the State Department.
    Again, congratulations on your nominations to these 
important positions. I want to welcome all of you and extend a 
warm welcome, on behalf of the committee, to all your families 
and friends who are here. And I hope that, when you get a 
chance to testify, each of you will introduce others that are 
here supporting you from your family.
    Should you serve our Nation in these important positions, 
it is critical that each of you provide strong stewardship of 
American taxpayer resources, demonstrate professionalism and 
good judgment, and vigorously work to advance the priorities of 
the United States.
    During your testimony, I hope each of you will lay out your 
vision and goals for the positions to which you have been 
nominated for, and your plan to achieve them.
    Joining us this afternoon are five nominees. I am pleased 
to introduce them to the committee.
    Mileydi Guilarte, who is been nominated to be the United 
States Alternate Executive Director of the Inter-American 
Development Bank. And she is currently serving as the 
International Cooperation Specialist in the Bureau for Latin 
America and the Caribbean at the United States Agency of 
International Development. She previously worked at the United 
Nations, the World Bank, and the International Monetary Fund.
    Jennifer Haverkamp is the nominee to be Assistant Secretary 
of State for Oceans and International Environmental and 
Scientific Affairs. Ms. Haverkamp is currently an independent 
consultant and lecturer at George Washington University Law 
School. She has previously worked for the Environmental Defense 
Fund, serving as the Director of International Climate Program 
and the Managing Director for International Policy.
    Marcia Occomy is the nominee to the be United States 
Director of the African Development Bank for a term of 5 years. 
She is currently a specialist leader at Deloitte Consulting and 
has been with Deloitte since 2009, where she has worked with 
the United States Agency for International Development on 
various assignments.
    Sunil Sabharwal is the nominee to be the United States 
Alternate Executive Director of the International Monetary Fund 
for a term of 2 years. He is an independent investor and 
consultant in the international payment sector since 2006. 
During his career, he has worked at the European Bank for 
Reconstruction and Development, and held senior positions at 
First Data Corporation, Western Union, and GE Capital.
    And then Brian Egan has been nominated for the position of 
Legal Adviser at the Department of State. He is currently 
working as Legal Adviser to the National Security Council, 
Deputy Assistant to the President, and Deputy Counsel to the 
President. In addition to previously working with the national 
security staff at the White House, he has also served as an 
attorney adviser at the Office of Legal Adviser of the 
Department of State.
    Now I want to turn to the Ranking Member, Senator Udall, to 
offer his opening remarks.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Barrasso, for 
holding this hearing. And I, too, want to welcome our nominees 
who are with us this afternoon. We have five well-qualified 
candidates with impressive resumes being considered today.
    As most of you know, our subcommittee's jurisdiction covers 
a lot of ground, some would say from the ocean floor out to 
space. The Bureau of Oceans and International Environmental and 
Scientific Affairs, I think, would agree with that. Their work, 
ranging from environmental issues, such as climate change, to 
emerging issues, such as space, is crucial to our foreign 
policy. Congress has a vital interest in international 
institutions to promote economic growth, to support the 
development of international law, to support strong 
environmental standards and improve security and lives. All 
serve to strengthen social and international development and 
further important objectives of U.S. foreign policy.
    The nominations we are considering today provide an 
excellent opportunity for the United States to continue to work 
closely with the international community. Our participation in 
the international development organizations help shape the 
discussions in multilateral forums to reflect U.S. priorities 
and interests, and also ensure that organizations like the 
Inter-American Development Bank, the African Development Bank, 
and the International Monetary Fund are well equipped to 
succeed in their missions. Those missions are essential to 
promote security, economic prosperity, and advocate for 
healthier lives through science and partnerships. That is a 
responsible course and brings greater stability, not only to 
specific regions around the world, but throughout the world.
    So, I look forward to our discussions here today with this 
impressive list of nominees.
    Thank you, Mr. Chairman. And I would yield back.
    Senator Barrasso. Thank you.
    Senator Cardin, anything you would like to add?
    Senator Cardin. Thank you, Mr. Chairman.
    I just really want to welcome our nominees, thank you for 
your public service, your willingness to serve, and I also 
thank your families.
    Senator Barrasso. Thank you both.
    And all of the positions that the committee is discussing 
today are very important. I look forward to hearing the 
testimony.
    Your full statements will be entered into the record in 
their entirety. And I ask that you try to summarize your 
testimony in about 5 minutes in order for members to have an 
opportunity to ask questions. Other members may be joining us 
at different times during the hearing. And again, please feel 
free to introduce your family members who are here today 
offering their support.
    And, with that, Ms. Guilarte, may we please start with you?

 STATEMENT OF MILEYDI GUILARTE, NOMINATED TO BE U.S. ALTERNATE 
   EXECUTIVE DIRECTOR OF THE INTER-AMERICAN DEVELOPMENT BANK

    Ms. Guilarte. Thank you, Chairman.
    Chairman Barrasso, Senator Udall, members of the committee, 
thank you for the opportunity to appear before you today.
    I am honored that President Obama nominated me to serve as 
the Alternate Executive Director at the Inter-American 
Development Bank. I am also grateful to Secretary Lew and 
Assistant Secretary Marisa Lago for supporting me.
    I am also grateful to my family, friends, and colleagues 
that are present today for their love, encouragement, and 
unwavering support. I would like to acknowledge my mother, 
Zenaida Guilarte, who is with me today.
    If confirmed, I will bring to the IDB a deep understanding 
of Latin America, solid experience with international 
development, and a strong belief in the value of public 
service, and the commitment to relentlessly promote U.S. 
interests in the region.
    Representing the United States at the IDB, an institution 
created to support the economic and social development of Latin 
America, is a humbling yet vital undertaking. If confirmed, I 
would be the first Latina in nearly 30 years to hold this 
important position.
    Since I appeared before this distinguished committee a year 
ago, I have continued to strengthen my experience and 
engagement in Latin America at the United States Agency for 
International Development, primarily working on our response to 
last summer's surge of unaccompanied minors from Central 
America. Addressing the interrelated economic, political, and 
security challenges facing the region, and their consequences, 
are critical to the national security interests of the United 
States. If confirmed, I hope to continue supporting this 
difficult and challenging task.
    Let me take the opportunity to tell you a little bit about 
my background, which has helped shape how I came to pursue a 
career in international development.
    Born in Cuba, I left Havana for the United States at an 
early age with my family in search of a better life with only a 
single blue suitcase in our hands. I spent my formative years 
in Miami, where I worked side by side with my parents in flea 
markets each weekend to help make ends meet. These experiences 
taught me the values of discipline and hard work. I was the 
first member of my family to graduate from college. And I feel 
deeply blessed to have prospered in America.
    While in graduate school, I focused on developing a social 
academic foundation to understand economic, political, and 
social issue as they impact development and democracy. After 
graduation, my deep commitment to the promotion of democracy 
and human rights led me to work and live in various countries 
around the world.
    Through these experiences, I deepened my leadership skills 
and learned how critical the interaction between financial 
institutions, donor, and civil society are in the development 
of the world's poorest nations. At the World Bank and at the 
United Nations, I worked on conflict prevention, humanitarian 
assistance, and strengthening the emerging democracies. Most 
recently, at the United States Agency for International 
Development, I have worked on our response to address the root 
causes of the influx of unaccompanied minors while at the same 
time contributed to the interagency process that produced the 
administration's proposed $1 billion request for Central 
America. These experiences allow me to appreciate the 
challenges of working within complex multilateral institutions 
and develop the skills to help promote effective initiatives in 
that environment.
    Thinking about Latin America has been a constant throughout 
my life. The opportunity to represent our great country at the 
Inter-American Development Bank is a particular honor for me as 
an American born in Latin America. If confirmed, I will work 
diligently to advance U.S. objectives at the IDB by carefully 
stewarding the resources of U.S. taxpayers and by promoting 
greater accountability, transparency, and effectiveness.
    I look forward to working closely with the members of this 
committee and your staff. Thank you for your consideration. And 
I look forward to answering any questions you might have.
    [The prepared statement of Ms. Guilarte follows:]

                 Prepared Statement of Mileydi Guilarte

    Chairman Barrasso, Senator Udall, members of the committee, thank 
you for the opportunity to appear before you today. I am honored that 
President Obama nominated me to serve as the Alternate Executive 
Director at the Inter-American Development Bank. I am also grateful to 
Secretary Lew and Assistant Secretary Marisa Lago for supporting me.
    I am also grateful to my family, friends, and colleagues [that are 
present today], for their love, encouragement, and unwavering support. 
I specially would like to thank my mother, Zenaida, for inspiring me to 
be better each day.
    If confirmed, I will bring to the IDB a deep understanding of Latin 
America, solid experience with international development, a strong 
belief in the value of public service, and the commitment to 
relentlessly promote the U.S. interests in the region.
    Representing the United States at the IDB, an institution created 
to support the economic and social development of Latin America, is a 
humbling yet vital undertaking. If confirmed, I would be the first 
Latina in nearly 30 years to hold this important position.
    Since I appeared before this distinguished committee a year ago, I 
have continued to strengthen my experience and engagement in Latin 
America at the United States Agency for International Development, 
primarily working on our response to last summer's surge of 
unaccompanied minors from Central America. Addressing the interrelated 
economic, political and security challenges facing the region and their 
consequences, are critical to the national security interests of the 
United States. If confirmed, I hope to continue supporting this 
difficult and challenging task.
    Let me take the opportunity to tell you a little bit about my 
background, which has shaped how I came to pursue a career in 
international development. Born in Cuba, I left Havana for the United 
States at an early age with my family in search of a better life with 
only a single blue suitcase in our hands. I spent my formative years in 
Miami, where I worked side by side with my parents in flea markets each 
weekend to help make ends meet. These experiences taught me the values 
of discipline and hard work. I was the first member of my family to 
graduate from college, and I feel deeply blessed to have prospered in 
America.
    While in graduate school, I focused on developing a solid academic 
foundation to understand economic, political and social issues as they 
impact development and democracy.
    After graduation, my deep commitment to the promotion of democracy 
and human rights led me to work and live in various countries around 
the globe. Professionally, I have worked in countries as diverse as 
India, East Timor, the Philippines, and the Republic of the Maldives. 
Through these experiences, I deepened my leadership skills and learned 
how critical the interaction between financial institutions, donors and 
civil society are in the development of the world's poorest nations.
    At the World Bank and at the United Nations, I worked on conflict 
prevention, humanitarian assistance, and strengthening emerging 
democracies. Most recently, at the United States Agency for 
International Development, I have worked on our response to address the 
root causes of the influx of unaccompanied minors, while at the same 
time contributed to the interagency process that produced the 
administration's proposed $1 billion request for Central America. These 
experiences allowed me to appreciate the challenges of working within 
complex multilateral institutions and develop the skills to help 
promote effective initiatives in that environment.
    Thinking about Latin America has been a constant throughout my 
life. The opportunity to represent our great country at the Inter-
American Development Bank is a particular honor for me as an American 
born in Latin America.
    If confirmed, I will work diligently to advance U.S. objectives at 
the Inter-American Development Bank by carefully stewarding the 
resources of the U.S. taxpayer and by promoting greater accountability, 
transparency and effectiveness. I look forward to working closely with 
the members of this committee and your staff.
    Thank you for your consideration, and I look forward to answering 
any questions you might have.

    Senator Barrasso. Thank you so very much for your 
testimony.
    Ms. Guilarte. You are welcome.
    Senator Barrasso. Thank you.
    Ms. Haverkamp.

        STATEMENT OF JENNIFER ANN HAVERKAMP, NOMINATED 
         TO BE ASSISTANT SECRETARY OF STATE FOR OCEANS 
        AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC 
                            AFFAIRS

    Ms. Haverkamp. Thank you, Mr. Chairman and Ranking Member 
Udall and distinguished members of the committee. It is a great 
privilege for me to appear before you today as President 
Obama's nominee for Assistant Secretary of State for the Bureau 
of Oceans and International Environmental and Scientific 
Affairs.
    With your permission, I have a longer statement for the 
record.
    I am deeply grateful to President Obama and Secretary Kerry 
for placing their trust in me for this position. And I look 
forward to again working with Under Secretary Novelli, my 
former colleague from the Office of the U.S. Trade 
Representative. If confirmed, I very much look forward to 
working with the Congress, and with this committee in 
particular, to advance U.S. interests through our global 
environmental, scientific, and health diplomacy.
    I am also deeply grateful to my family, my support and 
inspiration. With me here today are my husband, Jeff Kehne, my 
father- and mother-in-law, Bruce and Elizabeth Kehne, and my 
niece, Meagan Haverkamp. Our two children, Gregory and 
Adrianne, very much wish they could be here, but they are busy 
wrapping up their end-of-semester college activities far from 
Washington.
    My parents, were they still alive, would have been 
enormously proud. My father, a college educator who served as a 
U.S. Navy lieutenant in World War II in the Pacific, and my 
mother, a teacher and homemaker who raised six children, 
believed deeply in the importance of education, hard work, and 
public service.
    I am energized and eager to return to government and put my 
experience to work advancing American priorities and values. I 
would bring to the position a science background, having 
majored in biology in college and published ecological field 
research. I have dedicated most of my career to public service, 
and have worked for the last 22 years in the international 
realm. I served as the Assistant U.S. Trade Representative for 
Environment and Natural Resources for most of my 10 years at 
USTR, and, before, held positions of responsibility at the 
Department of Justice, the Environmental Protection Agency, and 
the U.S. Court of Appeals. More recently, I have worked and 
served on boards in the nonprofit sector, with a focus on 
finding practical solutions to confront climate change, 
conserve tropical forests, and advance clean energy.
    I believe many aspects of my experience, especially at 
USTR, will have relevant parallels in the work of OES. These 
include strengthening the United States domestically through 
international engagement, finding ways to advance U.S. economic 
interests while protecting our environmental values, and 
promoting health and prosperity abroad, and leveling the 
playing field for U.S. companies through advancing 
environmental protections in other countries.
    Turning to OES: Four decades ago, this Congress created the 
Bureau and gave it broad responsibilities for complex and 
consequential issues. In the years since, OES's signature 
issues of science, technology, and innovation, environment, 
oceans, and health have all played increasingly significant 
roles in strengthening the U.S. economy, advancing our foreign 
policy objectives, and buttressing our leadership positions 
around the world.
    If confirmed by the Senate, my priorities would be 
interwoven and would encompass the themes of investments, 
innovation, and inspiration.
    First, investments. I would continue and build upon the 
strong and effective investments Secretary Kerry is making in 
the oceans, the Arctic, climate change, wildlife conservation, 
and health. In each of these areas, achieving substantive and 
diplomatic gains depends upon making strong and effective 
investments in long-term policy development, interagency 
coordination, the best analysis, and partnerships with other 
governments, the private sector, and civil society.
    Second, innovation. Advances in science and technology have 
sharpened the need to focus on science diplomacy. To remain the 
best innovators in the world, our scientists must have access 
to data, research results, and collaboration opportunities with 
their international counterparts. And science enables the 
United States to exert innovative leadership in averting 
catastrophes, whether from mercury contamination, an infectious 
disease like Ebola, or severe water shortages.
    Third, inspiration. If confirmed, I would work to foster 
and capitalize on the tremendous talent and inspiration of the 
people in OES to build coalitions and yield important 
diplomatic wins.
    In closing, I am eager to tackle the staggering pressures 
bearing down on the planet's people and natural resources--as 
Senator Udall said, from the ocean's depths to the ice-capped 
poles and to outer space, and to help shape foreign diplomacy 
in these areas for years to come.
    If confirmed, I would work hard every day to successfully 
carry out the profound responsibility thereby conferred upon 
me.
    Thank you for your consideration. And I look forward to 
your questions.
    [The prepared statement of Ms. Haverkamp follows:]

              Prepared Statement of Jennifer Ann Haverkamp

    Thank you, Mr. Chairman, Ranking Member Udall and distinguished 
members of the committee.
    It is a great privilege for me to appear before you today as 
President Obama's nominee for Assistant Secretary of State for the 
Bureau of Oceans and International Environmental and Scientific Affairs 
(OES). I am grateful to President Obama and Secretary Kerry for placing 
their trust in me to help fashion solutions to the profound challenges 
facing our fragile world and the people it must continue to sustain. I 
am also grateful for the opportunity to again work with Under Secretary 
Catherine Novelli, whose dynamic leadership and excellent judgment I 
had the privilege to observe closely during our years together at USTR.
    If confirmed, I very much look forward to working with the 
Congress, and this committee in particular, to advance the United 
States essential environmental, economic, and national security 
interests through our global environmental, scientific, and health 
diplomacy.
    I am also deeply grateful to my family, who have supported and 
inspired me throughout my career in public service and international 
environmental and trade policy. With me here today are my husband, Jeff 
Kehne, my father- and mother-in-law, Bruce and Elizabeth Kehne, of 
Columbia (formerly Pikesville), Maryland, and my niece, Meagan 
Haverkamp. Our two children very much wish they could be here but our 
son Gregory, a college junior, is studying mathematics abroad in 
Budapest and our daughter Adrianne is busy completing her freshman year 
of college.
    My parents, were they still alive, would have been enormously proud 
to see this day. My father, a college educator who served as a U.S. 
Navy lieutenant in World War II's Pacific Theater, and my mother, a 
teacher and homemaker who raised six children, believed deeply in the 
importance of education, hard work, and public service. And I can thank 
our family's cross-country vacations, which Dad and Mom spent driving 
us to see our Nation's spectacular national parks and historic sites, 
for sparking my lifelong passion for nature conservation and outdoor 
recreation.
Professional background
    I am energized and eager to return to government and put my 
experience to work advancing American priorities and values. My 
professional experiences have attracted me to this position and I might 
even argue this is a role I have been preparing for throughout my 
career.
    I would bring to the position a science background, having majored 
in biology in college and published field research on the ecology of 
the North American tall-grass prairie. I have dedicated most of my 
career to public service, and have worked for the last 22 years in the 
international realm. For most of my 10 years at USTR I served as the 
Assistant U.S. Trade Representative for Environment and Natural 
Resources and was a career member of the Senior Executive Service. 
Before USTR I also held positions of responsibility at the Department 
of Justice, the Environmental Protection Agency, and the U.S. Court of 
Appeals. Though working at Foggy Bottom would be a new experience, over 
the years I have engaged actively with many of the Department's global 
environmental, fisheries, and economic issues and gotten to work with 
many of its outstanding officials.
    I believe many aspects of my experience at USTR will have relevant 
parallels in the work of OES: strengthening the United States 
domestically through international engagement; finding ways to advance 
U.S. economic interests while protecting our environmental values; 
promoting health and prosperity abroad and leveling the playing field 
for U.S. companies by advancing environmental protections in other 
countries; and recognizing that often the best way to protect 
biodiversity is through solutions that accommodate the local 
population's economic needs--by making the forests and elephants and 
coral reefs worth more alive than dead.
    More recently, I worked in the nonprofit sector to find practical 
solutions to confront climate change, conserve tropical forests, and 
advance clean energy. Addressing and preparing for climate change, one 
of the most profound challenges facing our generation, is a key 
priority of the President and Secretary Kerry, and cuts across many 
aspects of OES's work and that of the Department more broadly.
Overview of OES
    Four decades ago, Congress passed legislation creating OES with 
broad responsibilities for complex and consequential issues, around the 
same time Congress addressed increasingly harmful environmental 
degradation by passing landmark environmental and pollution control 
legislation. Over the years since those laws were enacted, OES's 
signature issues of science, technology, and innovation; environment; 
oceans; and health have played increasingly significant roles in 
strengthening the U.S. economy, advancing our foreign policy 
objectives, and buttressing our leadership position in the world. More 
and more, the Department's regional bureaus and embassies consider 
OES's deep bench of substantive experts a valuable tool in their 
bilateral diplomacy, as the host countries seek out U.S. scientific and 
technological cooperation or assistance to address challenges such as 
wildlife trafficking or resolving conflicts over access to water 
resources. For example, OES experts supported efforts by countries 
along the Nile River Basin to establish a cooperative framework for 
managing its limited water resources that is expected to contribute to 
the region's economic development, peace, and security.
    As part of the first Quadrennial Diplomacy and Development Review 
(QDDR) in 2010, OES joined with the Department's Bureau of Economic and 
Business Affairs and the Bureau of Energy Resources to become the ``E'' 
family, now under Under Secretary Novelli's leadership. This 
collaborative relationship was reinforced in the recently released 
second QDDR. I would welcome the opportunities this structure presents 
for close collaboration with these offices, a situation resonant with 
my career experiences in international trade, environmental protection, 
and clean energy development.
    If confirmed by the Senate, my priorities would be interwoven and 
would encompass the following themes: investments, innovation, and 
inspiration. First, I would like to continue the strong and effective 
investments Secretary Kerry is making, especially in the areas of 
oceans, the Arctic, climate change, conservation, and health. In each 
of these areas, investments in long-term policy development; 
interagency coordination; partnerships with other governments, the 
private sector, and civil society; and the best analysis will be key to 
achieving sustained substantive and diplomatic gains.
    Second, innovation. Our knowledge of science to educate and inform 
our partners and the public will guide my thinking and bring an 
innovative, equitable and cost-effective approach to problemsolving. 
Advances in science and technology have brought our world much closer 
together and sharpened the need to focus on science diplomacy. To 
remain the best in the world, our scientists need access to data, 
research results, and collaboration opportunities with their 
international counterparts. And science underpins the actions we take 
and enables the United States to exert innovative leadership in 
averting catastrophes, whether from mercury contamination, an 
infectious disease or severe water shortages.
    Third, inspiration. I would work to foster and capitalize on the 
tremendous talent and inspiration of the people in OES to build 
coalitions and partnerships. The Bureau's professionals have been at 
the forefront of international efforts to achieve important wins on the 
conservation, health, climate change, science, space and trade fronts, 
keeping a steady eye on the prize throughout often contentious, hard-
fought negotiations (including some that I have witnessed firsthand).
Priority issues for OES
    Across the wide range of issues that fall within OES's 
responsibility, I'd like to elaborate on my key priorities, if 
confirmed:
            Oceans
    The oceans, covering almost three-quarters of the planet, are vital 
resources for food, for transportation, for energy, for tourism. 
Secretary Kerry has rightly made global oceans policy a top priority of 
the Department, and if confirmed I look forward to throwing my energy 
into those efforts.
    The key initiatives coming out of last June's successful Our Ocean 
international conference include goals to advance sustainable 
fisheries, reduce pollution entering the marine environment, stem the 
increase of ocean acidification, and protect ocean areas. One OES 
priority in 2015 is carrying out a plan developed by President Obama's 
Task Force on Combating Illegal, Unreported, and Unregulated Fishing 
and Seafood Fraud. Implementing this plan to combat IUU fishing and 
seafood fraud will help level the playing field for American fishermen 
and fishing businesses who play by the rules.
    I would also prioritize OES's role in promoting sustainable global 
fisheries for the world's people who depend on oceans for their food 
and their livelihoods. Over 1 billion people worldwide rely on food 
from the ocean as their primary source of protein. OES is involved in a 
wide range of negotiations addressing the conservation and management 
of global fish stocks. The economic benefit to the United States 
generated by the fisheries subject to these negotiations, or managed by 
the regional fisheries management organizations within which many such 
negotiations occur, is estimated at between $12-$15 billion each year. 
These negotiations affect economic interests and stakeholders in 
virtually all parts of the United States, including the Pacific and 
Atlantic coasts, Gulf of Mexico, Alaska, Hawaii and the U.S. Pacific 
territories.
    I am grateful the Senate gave its advice and consent to U.S. 
ratification of four important fisheries treaties last spring, and look 
forward, if confirmed, to working with Congress, members of the Oceans 
Caucus and this committee to implement them. Illustrative of these 
agreements' contribution to safeguarding U.S. economic interests is the 
Agreement on Port State Measures to Prevent, Deter, and Eliminate 
Illegal, Unreported, and Unregulated Fishing. The Port State Measures 
Agreement combats these harmful fisheries practices through the 
implementation of robust, globally consistent requirements of parties, 
in their capacity as port States, to refuse port entry or access for 
landing fish, transshipment, packaging, processing, or servicing a ship 
if the ship is known to have engaged in IUU fishing. The U.S. fishing 
industry benefits when its competitors are compelled to also follow the 
rule of law, and I look forward to contributing to these efforts.
            Arctic
    As part of OES's responsibility for oceans and polar affairs, in 
recent years the Bureau has deepened its engagement with other Arctic 
countries, as the region's changing climate and receding ice cover have 
necessitated greater attention to emerging issues. As more Arctic 
waters become navigable and fishable, the need escalates for greater 
Arctic science cooperation, sustainable fisheries management, and 
protection of a fragile ecosystem newly opening to shipping, economic 
development and resource extraction. The Arctic is an excellent example 
of how U.S. environmental and natural resource conservation interests 
are inextricably entwined with our economic and national security 
interests, and must be an integral part of our diplomatic efforts.
    In April, the United States took over from Canada the 2-year 
rotating chairmanship of the Arctic Council, an intergovernmental forum 
made up of those eight nations with land territory above the Arctic 
Circle. The Council's priorities during the U.S. chairmanship will 
focus on stewardship of the Arctic Ocean, improving economic and living 
conditions for the people of the region, and addressing the effects of 
climate change in the Arctic. If confirmed, I look forward to working 
closely with Admiral Papp, the Department's Special Representative for 
the Arctic, as well as with other bureaus and government agencies, to 
make the best use of this important diplomatic opportunity.
            Climate change
    The Department's 2015 Quadrennial Diplomacy and Development Review 
focuses on four global policy priorities, including mitigating and 
adapting to climate change. As Secretary Kerry stated in his March 2015 
speech before the Atlantic Council, climate change, like epidemics, 
poverty, extremism, and nuclear proliferation, is a challenge that 
respects no borders. He has also spoken frequently of our 
responsibility to future generations as stewards of the Earth.
    If confirmed, I would look forward to supporting the Office of the 
Special Envoy on Climate Change (SECC), the Department's lead on 
international negotiations on climate change. Although OES does not 
lead this work, the Bureau lends its scientific and technical expertise 
to SECC. One example in particular is the work the Bureau is 
undertaking with Mexico and Canada to gain broad international support 
for an agreement to dramatically reduce hydrofluorocarbons (HFCs) in 
the atmosphere. The health and economic benefits that would be derived 
from eliminating 90 billion tons of carbon dioxide-equivalent through 
2050 would be enormous. If confirmed, I would lend my professional 
expertise in the trade, economics, and environmental arena to ensure 
that the support the Bureau provides in confronting climate change is 
scientifically based, results oriented and of tremendous value to the 
American people.
            Wildlife trafficking
    Wildlife trafficking is a critical conservation concern and a 
threat to our country's national security. The illegal trade in 
wildlife has devastating impacts: it fuels corruption and undermines 
the rule of law, hinders economic development, contributes to the 
spread of disease, and is pushing some species to the brink of 
extinction. It is compromising the tourism-based economies of 
vulnerable African countries and, in some instances, is being used to 
finance organized crime, insurgencies, and possibly terrorism.
    The toll on iconic species is horrific: the forest elephant 
populations in Central Africa, for instance, declined by approximately 
two-thirds between just 2002 and 2012. And while elephants and 
endangered rhinos slaughtered for their ivory first come to mind, many 
other species from most continents, including black coral, turtles and 
tortoises, iguanas, tropical birds, pangolins and primates, are all at 
risk. The United States is both a link in the transit chain and a final 
destination for some wildlife and wildlife products; our international 
efforts focused on reducing both supply and demand must and will be 
pursued in tandem with domestic actions.
    The OES Bureau has an important role to play in carrying out the 
Implementation Plan for the National Strategy for Combatting Wildlife 
Trafficking, issued in February. The Plan provides details for how the 
National Strategy's goals will be achieved and how progress will be 
measured. OES is leading coordination of two elements of the strategy: 
the international cooperation and partnerships and demand reduction 
components. OES is also contributing, through its support for regional 
wildlife enforcement networks (WENs) worldwide, to the global 
enforcement element.
    The United States ramped-up efforts are beginning to pay off. We 
have, notably, reached agreements with China to cooperate in our 
efforts to combat wildlife trafficking. But there is still an enormous 
amount of work to be done, and if confirmed I would ensure that the 
Bureau's resources are deployed effectively in the fight against this 
global scourge.
            Global health diplomacy
    Before the daunting challenges of Ebola fade in memory, the United 
States Government needs to incorporate its lessons learned into our 
broader global health diplomacy, to better inform our Nation's 
responses to the inevitable future pandemics, wherever and whenever 
they may arise. The Ebola outbreak is but the latest evidence that the 
world has far to go to be ready to prevent, detect, and respond to 
these global health security threats, and OES is well-positioned to 
help address this problem. The Global Health Security Agenda, a 44-
country effort launched by the United States in 2014, has now gained 
over 100 new concrete commitments to prevent, detect, and rapidly 
respond to infectious disease threats before they become epidemics like 
Ebola. The Bureau supports this vital priority by working among these 
countries and with relevant international organizations to achieve the 
Agenda's targets. Among other efforts, the Bureau is also working to 
expand the number of countries able to meet their obligations to the 
World Health Organization to develop certain core capacities to detect, 
assess, notify, and report public health emergencies of international 
concern.
    OES plays a critical, though often behind the scenes, role in 
global health diplomacy. The Bureau works closely with the Department's 
regional and functional bureaus, special representatives and other U.S. 
entities (CDC, HHS, DOD, USAID, et al.) with important roles in global 
health policy. The strong relationships that U.S. expert agencies have 
developed with their international counterparts are vital to advancing 
global health. But as we learned from Ebola, in a crisis, to mobilize 
the global resources needed, and to coordinate the efforts of multiple 
entities, it takes the high level, cross-cutting diplomacy that the 
State Department does so well. If confirmed, I would apply myself to 
finding ways to strengthen the international and interagency 
coordination on shared global health priorities, and to advancing 
global pandemic readiness.
            Science and technology--promoting innovation and 
                    entrepreneurship
    As I mentioned earlier, I consider the deployment of U.S. 
scientific and technological expertise, and our leadership in 
innovation, to be an important engine of diplomacy and global 
development. Equally important is to support the Secretary's efforts to 
increase the role of science across the work of the State Department.
    Innovation and entrepreneurship have been fundamental drivers of 
U.S. economic growth since our country's founding, and promoting 
innovation abroad is an especially promising area of U.S. diplomacy. In 
this vein, OES has developed a Global Innovation through Science and 
Technology (GIST) initiative, which trains young entrepreneurs. GIST, 
itself an excellent example of bringing an innovative approach to 
diplomacy, has to date led to businesses that generated over $80 
million in revenue. The program has worked in 86 emerging economies 
with over 2.6 million innovators and entrepreneurs around the world, 
providing training to over 4,500 startups. If confirmed, I would work 
to grow this program, which gives hope to young entrepreneurs and 
creates jobs in countries where the lack of economic opportunity can 
sow unrest and threaten our national security.
Closing
    I am excited about the prospect of leading a bureau that brings to 
bear the best analysis to help pioneer scientific and technological 
breakthroughs. I am excited to tackle the staggering pressures bearing 
down on natural resources, from the oceans' depths to the ice-capped 
poles, to the savannas and to outer space, and to help shape foreign 
diplomacy in these areas for years to come.
    If confirmed, I would work hard every day to deserve the 
extraordinary honor and carry out the profound responsibility thereby 
conferred upon me.
    Thank you for your consideration, and I look forward to your 
questions.

    Senator Barrasso. Well, thank you. Congratulations, again.
    I will next move to Ms. Occomy.

    STATEMENT OF MARCIA DENISE OCCOMY, NOMINATED TO BE U.S. 
            DIRECTOR OF THE AFRICAN DEVELOPMENT BANK

    Ms. Occomy. Thank you, Chairman and distinguished members 
of the committee. I am grateful for the opportunity to appear 
before you today.
    I am honored that President Obama has nominated me to serve 
as the U.S. Executive Director for the African Development 
Bank.
    I grew up in Chicago in a family of excellent role models 
who taught me the importance of hard work, discipline, and 
focus to be successful in life. My grandmother was one of the 
first African-American women to attend Radcliffe College in the 
early 1900s, and later became a prominent writer during the 
Harlem Renaissance. My father entered the University of Chicago 
at the age of 15, excelling in math and later becoming a 
computer executive in the retail industry in Chicago. My mother 
taught public schools for over 30 years, dedicating her life to 
public service. They and many others have influenced my 
decision, in part, to pursue an international development 
career later in my life.
    If confirmed as the U.S. Executive Director to the African 
Development Bank, my vision is to leverage my international 
development experience to support U.S. interests in seeing the 
African Development Bank carry out its mission to promote 
economic development and progress across Africa.
    Boosting growth is important for the African Continent but 
also for the United States by opening new markets and providing 
new customers for American goods and services. I have years of 
experience as a fiscal reform adviser on USAID-financed 
projects in developing in post-conflict countries. I have 
advised Ministries of Finance as they underwent public 
financial management reforms to strengthen their revenues and 
to build financial systems and capacity to put the country on 
the path towards economic growth. I have worked in countries in 
Central Asia, the Middle East, Central Europe, and in Africa, 
Egypt, Senegal, and, most recently, in the newest independent 
nation, South Sudan. I have experienced firsthand when 
countries struggle to balance implementation of sound fiscal 
policies while seeking to maintain political stability and 
security. I was in South Sudan and directly involved in 
assisting the country in post-conflict recovery efforts. Prior 
to my fiscal reform project implementation experience, I worked 
as a policy analyst at OMB during the 1990s.
    I also have experience leveraging public-private 
partnerships for important local economic development projects. 
As a University of Chicago graduate student on a Patricia 
Harris Fellowship, I worked with the Habitat Company, a leading 
real-estate development firm which partnered with the Chicago 
Housing Authority to build scattered-site housing for public-
housing residents to better integrate them into the broader 
community. This project was a model for how the public and 
private sector can partner to address a social issue 
effectively. I recognize that leveraging private-sector 
investment solutions and technologies will be a critical aspect 
of the future development of Africa, as well. I look forward to 
supporting the African Development Bank to leverage the 
financing instruments, to encourage private investment in 
Africa, including through public-private partnerships.
    During his July 2013 visit to Africa, President Obama 
launched the Power Africa Initiative, a $7 billion, 5-year 
initiative to double access to electricity in sub-Saharan 
Africa, in partnership with African countries and the private 
sector.
    When President Obama launched the Power Africa Initiative 
in Tanzania, African Development Bank president Donald Kaberuka 
joined him as a symbol of how the United States and Africa are 
working together to promote inclusive growth in the region.
    Attracting private investors to Africa will require 
significant investment in infrastructure and a climate that is 
conducive to investment. Creating the right investment climate 
will depend on Africa's commitment and ability to improve 
governance, transparency, regional integration, and to build a 
skilled workforce. The African Development Bank has played a 
leading role in assisting African countries to address those 
issues, but more work remains to be done.
    If confirmed, I commit to being a good steward of U.S. 
financial contributions to the bank and to ensure that the bank 
furthers U.S. economic and security interests.
    Mr. Chairman, members of the committee, thank you for 
considering my nomination. I look forward to answering your 
questions today.
    [The prepared statement of Ms. Occomy follows:]

               Prepared Statement by Marcia Denise Occomy

    Chairman Barrasso, Ranking Member Udall, and distinguished members 
of the committee, I am grateful for the opportunity to appear before 
you today. I am honored that President Obama has nominated me to serve 
as the U.S. Executive Director for the African Development Bank.
    I grew up in Chicago in a family of excellent role models who 
taught me the importance of hard work, discipline, and focus to be 
successful in life. My grandmother was one of the first African 
American women to attend Radcliffe College in the early 1900s and later 
became a prominent writer during the Harlem Renaissance. My father 
entered the University of Chicago at the age of 15 excelling in math 
and later becoming a computer executive in the retail industry in 
Chicago. My mother taught public schools for over 30 years dedicating 
her life to public service. They and many others have influenced my 
decision in part to pursue an international development career later in 
my life.
    If confirmed as USED, my vision is to leverage my international 
development experience to support U.S. interests in seeing the African 
Development Bank carry out its mission to promote economic development 
and progress across Africa. Boosting growth is important for the 
African Continent, but also for the United States, by opening new 
markets and providing new customers for American goods and services. I 
have years of experience as a fiscal reform advisor on USAID-financed 
projects in developing and post conflict countries. I have advised 
Ministries of Finance as they underwent public financial management 
reforms to strengthen their revenues and to build financial systems and 
capacity to put the country on a path toward economic growth, while 
building political capacity. I have worked in such countries as 
Kazakhstan, Kosovo, Iraq, Afghanistan, and in Africa--Egypt, Senegal 
and most recently in the newest independent nation South Sudan. I have 
experienced firsthand when countries struggle to balance implementation 
of sound fiscal policies, while seeking to maintain political stability 
and security. I was in South Sudan and directly involved in assisting 
the country in post conflict recovery efforts. Prior to my fiscal 
reform project implementation experience, I worked as a policy analyst 
at the OMB during the 1990s.
    I also have experience leveraging public-private partnerships for 
important local economic development projects. As a University of 
Chicago graduate student on a Patricia Harris Fellowship, I worked with 
Habitat Company, a leading real estate development firm which partnered 
with the Chicago Housing Authority to build scattered site housing for 
public housing residents to better integrate them into the broader 
community. This project was a model for how the public and private 
sector can partner to address a social issue effectively. I recognize 
that leveraging private sector investment, solutions and technologies 
will be a critical aspect of the future development of Africa as well. 
I look forward to supporting the African Development Bank to leverage 
its financing instruments to encourage private investment in Africa 
including through public-private partnerships.
    During his July 2013 visit to Africa, President Obama launched the 
Power Africa Initiative, a $7 billion, 5-year initiative to double 
access to electricity in sub-Saharan Africa in partnership with African 
countries and the private sector. In announcing this key initiative the 
President noted, ``America's been involved in Africa for decades but we 
are moving beyond a simple provision of assistance . . . to a new 
model, a partnership between America and Africa, a partnership of 
equals that focuses on (Africa's) capacity to solve problems and 
(Africa's) capacity to grow.''
    I embrace the President's vision. When President Obama launched the 
Power Africa Initiative in Tanzania, African Development Bank President 
Donald Kaberuka joined him as a symbol of how the United States and 
Africa can work together to promote inclusive growth in the region.
    Attracting private investors to Africa will require significant 
investment in infrastructure and a climate that is conducive to 
investment in Africa. Creating the right investment climate will depend 
on Africa's commitment and ability to improve governance, transparency, 
regional integration and to build a skilled workforce. The African 
Development Bank has played a leading role in assisting African 
countries to address these issues, but more work remains to be done.
    If confirmed, I commit to being a good steward of U.S. financial 
contributions to the bank and to ensure that the Bank supports our 
Nation's inherent values--recognizing that open societies are the 
strongest societies; transparent systems are the most successful 
systems; and countries that commit to equally helping their citizens be 
healthy and educated, with economic opportunities will be the most 
prosperous.
    Thank you again for considering my nomination, and I look forward 
to answering any additional questions you may have.

    Senator Barrasso. Thank you very much for your testimony.
    Now we will hear from Mr. Sabharwal.

 STATEMENT OF SUNIL SABHARWAL, NOMINATED TO BE U.S. ALTERNATE 
     EXECUTIVE DIRECTOR OF THE INTERNATIONAL MONETARY FUND

    Mr. Sabharwal. Chairman Barrasso, Ranking Member Udall, 
distinguished members of the committee, it is an honor to 
appear before you today to present my personal and professional 
credentials for the position of the United States Alternate 
Executive Director of the International Monetary Fund.
    I am grateful for President Obama for nominating me to this 
important office, and to Secretary Lew for his confidence and 
support. I also do want to thank the committee staff who have 
taken time to meet with me in the confirmation process.
    If confirmed I look forward to advancing our shared 
commitment to make the IMF an even more effective organization 
and one where U.S. interests are strongly represented, 
promoted, and defended.
    I would like to introduce the members of my family who are 
here with me today: my wife, Gabrielle, of 24 years, who has 
given up her forensic sciences career to follow me around the 
world and help me raise the family; my son, Nicolas, who just 
finished his sophomore year at Duke University studying 
computer sciences. He is accompanied by two of his college 
friends. It is great to see interest in the political process 
amongst youth.
    Senator Barrasso. You will be paying for dinner tonight. 
[Laughter.]
    Mr. Sabharwal. We did not talk about that yet. [Laughter.]
    Who is missing--of course, the busiest person in the family 
is always the youngest, and that is my daughter, Isabella. She 
is 16, a sophomore at the Cathedral School, who simply did not 
want to give up her orchestra practice and her track-and-field 
practice 2 days before the D.C. State Championships, and her 
chemistry exam, shockingly. So, we are missing her.
    I have submitted my written statement for the record. I do 
not intend to read that in its entirety here. However, I would 
like to point out, just briefly, that I arrived in this country 
32 years ago from Communist Hungary. My family--my mother, 
brother, and I--we fled and arrived at the United States 
Embassy in Vienna, sought political asylum, and, through the 
support of a number of families, churches, organizations, 
charities, I managed to enroll college and start a professional 
career. I am extremely, eternally grateful to this country. And 
I am now looking to give back.
    In the 27 or so years of my professional career, I had an 
opportunity to serve both on the public sector and 
predominantly on the private-sector side of things. In the 
public-sector capacity, I was an early American employee at the 
EBRD, the European Bank for Reconstruction Development, shortly 
after its inception, where I really found an appreciation of 
the role an IFI can play in funding infrastructure projects, 
creating institutions, and providing comfort to private-sector 
investment and engagement. However, as you have seen in the 
testimony, the majority of my experiences are in the private 
sector as an investor in financial services and financial 
technology.
    With my various positions, I have had a chance to travel 
and live around the world. And I believe this professional 
background, coupled with my volunteer experiences with the 
sports movement and Olympic organizations, really have given me 
an opportunity to deal with people from every single continent 
from many, many countries. And this, I feel, has prepared me 
well to carry out the duties, if confirmed, of the U.S. 
Alternate Executive Director at the IMF. I think this is an 
important skill when you are dealing with an institution with 
up to 200 members and where you need their support to engage 
with you on a wide range of issues.
    Thank you for the opportunity to appear here today. I would 
be pleased to answer any questions and, if confirmed, of 
course, working with you and your staff on a range of issues 
affecting the IMF.
    Thank you.
    [The prepared statement of Mr. Sabharwal follows:]

                 Prepared Statement of Sunil Sabharwal

    Chairman Barrasso, Ranking Member Udall, and distinguished members 
of the committee, it is an honor to appear before you today to present 
my personal and professional credentials for the position of United 
States Alternate Executive Director of the International Monetary Fund 
(IMF).
    I am grateful to the President for nominating me to this important 
office and to Secretary Lew for his confidence and support. If 
confirmed, I look forward to advancing our shared commitment to make 
the IMF an even more effective organization and one where U.S. 
interests are strongly represented, promoted, and defended.
    I would like to introduce members of my family, who are here with 
me today: starting with my son, Nicolas, who is a sophomore at Duke 
University with an interest in engineering and the sciences. My 
daughter, Izabella, who is a sophomore in High School at the National 
Cathedral School, and is vying to follow her grandfather to be an 
Olympian track athlete, and finally my wife, Gabrielle, with a Forensic 
Sciences background whose attention to detail has helped me get through 
all the documents needed prior to me sitting here in front of you. We 
also share a common passion for the sport of fencing as we met 25 years 
ago in Culver City, CA, in a fencing club and continue our involvement 
with the sport and the Olympic movement.
    I was born in New Delhi, India, to an Indian father and a Hungarian 
mother. My parents separated when I was 9, and I moved to Budapest 
Hungary part of the Soviet Block at the time. Following my mother's 
refusal to join the Communist Party, she was refused a business permit, 
was constantly harassed for her religious beliefs--in the end giving 
the family no choice but fleeing the country and seeking asylum at the 
U.S. Embassy in Vienna. I had just finished high school.
    Through the cooperation of the U.S. State Department, the United 
Nations, and charitable organizations, we received political asylum in 
the United States, more precisely in Columbus, OH, and with specific 
assistance by the Upper Arlington Lutheran Church. To date, I will 
never forget the reception we received in Columbus, in December of 1983 
(just a couple of days before Christmas) and will remain forever 
grateful to Professor Cole and his family who enabled me to enroll at 
the Ohio State University weeks after my arrival. While I put myself 
through college with the use of financial aid, work-study, and 
scholarships, my family moved to California. Upon graduation, I joined 
them to begin my professional career.
    When I left Hungary in 1983, I thought it was for good. Little did 
we know that less than 10 years later, massive political changes would 
sweep the region free. One of the first institutions created to foster 
the transition of the region was the European Bank for Reconstruction 
and Development (EBRD), and I was fortunate enough to play a meaningful 
role in the region's transition as an American citizen and EBRD 
employee.
    I established the EBRD office in Budapest in early 1992, a time in 
which Hungary was at the forefront of innovative foreign direct 
investment legislation and regulations. This experience allowed me to 
participate in landmark public and private sector transactions, 
including the first bank and telecomm privatizations, infrastructure 
projects, municipal finance, and venture capital deals of Central and 
Eastern Europe. In 1995, I transitioned to London to join the EBRD's 
headquarters staff as a member of its Financial Institutions team, 
which had the responsibility of investing in, and lending to, banks in 
the region. The 5 years I spent at the EBRD had shaped my early 
professional career and have had a significant impact throughout. I 
then spent about 10 years working for GE and First Data Corporation, 
most of it focused on investing in the financial services sector or 
companies that provide services to the financial services industry. For 
the last 8 years, I have served as an independent investor and adviser 
focused on the financial services, or ``fintech'' sector.
    As a result of my global upbringing, through which I gained an 
ability to relate to people around the world, and my 25 years of tenure 
in the financial services sector--in both public and private domains--I 
am equipped with the experience necessary to carry out successfully the 
duties, if confirmed, of the U.S. Alternate Executive Director at the 
IMF. In addition, my language skills and volunteer experiences are also 
highly relevant in a body where we need to get representatives of 
nearly 200 countries to support us on a wide-ranging set of issues.
    I look forward to answering your questions, and, if confirmed, to 
working with members of the committee on policy matters affecting the 
IMF.
    Thank you for the opportunity to appear before the committee today. 
I would be pleased to answer any questions you may have.

    Senator Barrasso. Thank you for your testimony. 
Congratulations, again.
    And now, finally, Mr. Egan.

STATEMENT OF BRIAN JAMES EGAN, NOMINATED TO BE LEGAL ADVISER OF 
                    THE DEPARTMENT OF STATE

    Mr. Egan. Mr. Chairman, Ranking Member Udall, and members 
of the subcommittee, it is an honor to appear before you today 
as President Obama's nominee to serve as Legal Adviser to the 
Department of State.
    I am humbled by the trust that the President and Secretary 
Kerry have placed in me, and I am grateful to the committee for 
considering my nomination. I also appreciate the opportunity I 
have had to meet with committee staff, before this hearing, for 
productive discussions on a range of topics.
    Mr. Chairman, please allow me to introduce my wife, Amy, 
and my children, Sally, Niles, and Damon, who are happy to have 
a half day of school to attend this afternoon's event. As you 
know, government service often requires long and unpredictable 
hours, which take a toll on our families. And I want to thank 
my family for the sacrifices they have made to enable me to 
pursue my passion for public service. I would not be able to 
carry out my current responsibilities, and I could not 
contemplate assuming the duties that I hope you will see fit to 
entrust to me, without their love and support.
    I would also like to introduce my father, Dennis Egan, who, 
by example, has taught me the importance of hard work, 
independent judgment, and kindness in raising myself and my 
five brothers and sisters.
    I am particularly honored to have been nominated for this 
position because serving as the Legal Adviser would mark a 
homecoming for me. Although I began my career as a lawyer in 
private practice, my calling has always been public service, 
and I have spent the past 10 years as a government lawyer, 
starting as a career attorney in the Office of the Legal 
Adviser. From my time there, I know that the Office of the 
Legal Adviser plays a critical role in advancing U.S. foreign 
policy and national security by providing high-quality and 
objective legal advice to the Secretary of State and other 
policymakers. The over 200 career lawyers and other 
professionals who make up the office strive to promote and 
protect U.S. interests around the world every day, without 
regard to party or politics, and in areas ranging from 
counterterrorism, law enforcement, and nuclear nonproliferation 
to the promotion of American trade and business and the 
protection of American citizens abroad.
    I have dedicated my career to public service, to play a 
part, however small, in helping address the many legal 
challenges that are faced by the greatest democracy in the 
world. If confirmed, I would seek to uphold the office's 
tradition of providing rigorous and objective legal analysis in 
furtherance of our Nation's interests at home and around the 
world.
    In my career, I have had the good fortune of being able to 
work in a number of national security legal positions with 
lawyers from around the government. And since 2013, I have been 
the Legal Adviser to the National Security Council. In my 
current role, I have the privilege of working every day with 
the President, Ambassador Rice, and other senior national 
security officials on a broad range of complex domestic and 
international legal issues. And in this capacity, I have had 
the privilege of working closely with general counsels and 
other senior lawyers from around the government, including the 
Departments of Justice, Defense, Commerce, Homeland Security, 
and the Treasury, the Director of National Intelligence, the 
CIA, and, of course, the Department of State. I have benefited 
immensely from the wisdom and counsel of Mary McLeod, who has 
served as State's Legal Adviser in an acting capacity for over 
2 years, and many of the other outstanding attorneys who serve 
in the office that is known as L at the State Department.
    Prior to serving in my current job, I worked at the 
Treasury Department as Assistant General Counsel for 
Enforcement Intelligence from 2012 to 2013, and my first job 
after graduating college was with the Department of Justice, 
where I served as a legal assistant in the Antitrust Division 
for nearly 3 years.
    My experience in government have taught me a considerable 
amount about leadership, responsibility, problem solving, and 
collaboration. And these experience have deepened my conviction 
that we are best able to confront the foreign policy challenges 
that we face as a nation when the executive and legislative 
branches work together to address those challenges. While we 
may not always see the same issues in precisely the same way, 
or reach the same conclusions, if confirmed, I would be 
committed to maintaining an open dialogue with this committee 
on the issues that I will be responsible for as Legal Adviser.
    Thank you for your consideration, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Egan follows:]

                 Prepared Statement of Brian James Egan

    Mr. Chairman, Ranking Member Udall, and members of the committee, 
it is an honor to appear before you today as President Obama's nominee 
to serve as Legal Adviser to the Department of State. I am humbled by 
the trust the President and Secretary Kerry have placed in me, and I am 
grateful to the committee for considering my nomination. I also 
appreciate the opportunity I have had to meet with committee staff 
before this hearing for what I found to be productive conversations on 
a range of topics.
    Mr. Chairman, please allow me to introduce my wife, Amy, and my 
children, Sally, Niles, and Damon. As each of you can attest, 
government service often requires long and unpredictable hours, which 
take a toll on our families. I want to thank my family for the 
sacrifices they have made to enable me to pursue my passion for public 
service. I would not be able to carry out my current responsibilities--
and I could not contemplate assuming the new duties I hope you will see 
fit to entrust to me--without their continued love and support. I would 
also like to introduce my father, Dennis Egan, who by example has 
taught me the importance of hard work, independent judgment, and 
kindness.
    I am particularly honored to have been nominated for this position 
because serving as Legal Adviser would mark a homecoming for me. 
Although I began my career as a lawyer in private practice, my calling 
has always been public service. I have spent the past 10 years as a 
government lawyer, starting as a career attorney in the Office of the 
Legal Adviser.
    From my previous time there, I know that the Office of the Legal 
Adviser plays a critical role in advancing U.S. foreign policy and 
national security by providing high quality, objective legal advice to 
the Secretary of State, other policymakers within the Department of 
State, and departments and agencies across the Federal Government. The 
over 200 career lawyers and other professionals who make up the Office 
of the Legal Adviser strive to promote and protect U.S. interests 
around the world every day. They do so, without regard to party or 
politics, in areas ranging from counterterrorism, law enforcement, and 
nuclear nonproliferation to the promotion of American trade and 
business and the protection of American citizens abroad.
    I have dedicated my career to government service to play a part, 
however small, in helping to address the many challenges faced by the 
greatest democracy in the world. If confirmed, I would seek to uphold 
the Office of the Legal Adviser's tradition of producing rigorous and 
objective legal analysis in furtherance of our Nation's interests at 
home and around the world.
    Beyond working at the Legal Adviser's Office, I have had the good 
fortune of being able to work in a number of other national security 
legal jobs, with lawyers from across the Federal Government. Since 
2013, I have been the Legal Adviser to the National Security Council 
and Deputy Counsel to the President. In my current role, I have the 
privilege of working every day to enhance the security and prosperity 
of the United States and the American people by advising the President, 
Ambassador Rice, and other senior national security officials on a 
broad range of complex domestic and international legal issues.
    I have worked closely with the General Counsels and other senior 
lawyers of departments and agencies throughout the government, 
including the Departments of Justice, Defense, Commerce, Homeland 
Security, and the Treasury; the Office of the Director of National 
Intelligence; the Central Intelligence Agency; and, of course, the 
Department of State. I have benefited from the wisdom and counsel of 
Mary McLeod, who has served as State's Legal Adviser in an acting 
capacity for over 2 years, and many of the other outstanding attorneys 
who serve in the Office of the Legal Adviser.
    Prior to serving as Legal Adviser to the National Security Council, 
I worked at the Department of the Treasury as Assistant General Counsel 
for Enforcement and Intelligence from 2012 to 2013. In that capacity, I 
was responsible for a staff of approximately 50 attorneys who provided 
legal advice and counsel on combating terrorism financing and other 
financial crimes, ensuring the effectiveness of U.S. financial 
sanctions regimes, and other issues related to Treasury's enforcement 
and intelligence responsibilities. And my first job after graduating 
from college was with the Department of Justice, where I served as a 
legal assistant in the Antitrust Division for nearly 3 years.
    My experiences in government have taught me a great deal about 
leadership, responsibility, problemsolving, and collaboration. These 
experiences also have deepened my conviction that we are best able to 
confront the foreign policy challenges we face as a nation when the 
executive and legislative branches work together to address those 
challenges. While we may not always see the issues in precisely the 
same way or reach the same conclusions, if confirmed I would be 
committed to maintaining an open dialogue with this committee on the 
issues that I will be responsible for as Legal Adviser.
    The challenges we face as a nation in the areas of foreign policy 
and national security are increasingly complex, and the legal issues 
that underlie some of these challenges are equally complex. Our 
Nation's leaders require the best possible legal advice to navigate 
these challenges, consistent with the Constitution and our commitment 
to the rule of law. If confirmed, I commit to you that I will do my 
best to provide that advice.
    Thank you for your consideration. I look forward to answering your 
questions.

    Senator Barrasso. Well, thank you so much for your 
testimony. And welcome, to your family, as well.
    Ms. Guilarte, the Latin American/Caribbean region have 
incredibly high energy costs, I think insufficient rates of 
investment; they rely on energy resources, such as Venezuelan 
oil, which may not be suitable, in the long run, in terms of 
sustainability. The countries are dependent on excess--on very 
expensive fuel. And I think we have an opportunity--and three 
members of this committee who are here today have all supported 
legislation--to make it a little easier for us to export U.S. 
natural gas, as well, and want to use the knowledge and the 
technology we have in the United States. Natural gas can be 
helpful in economies, because it provides a--much more 
affordable energy.
    So, in your role, if confirmed, at the International--at 
the Inter-American Development Bank, you know, they talk about 
electricity demand in Latin America and the Caribbean, it is 
going to be doubling over the next decade. And they are looking 
at economic development role that natural gas can play. So, I 
am going to ask if you know of any steps right now that the 
Inter-American Development Bank is taking to provide the region 
with energy security and diversification through natural gas, 
and what role you would like to play in that.
    Ms. Guilarte. Thank you, Chairman, for your question.
    I can understand your concern specifically about Venezuela 
and how their influence, especially on the ALBA members, 
especially those in the Caribbean and Central America, can have 
really a crisis situation, the way things are unfolding in 
Venezuela, and the impact that that could have in the region.
    In terms of coal energy projects and what can be done 
better at the IDB, certainly all projects that come to the 
board are given full consideration. At the moment, there are no 
corelated projects----
    Senator Barrasso. And, I am sorry, I asked about natural 
gas.
    Ms. Guilarte. This--natural gas.
    Senator Barrasso. Natural gas, yes.
    Ms. Guilarte. If confirmed, what I can do, in my capacity, 
is that, one, I will make sure that those related projects that 
come to the board are given full consideration that it meets 
the needs of the country's energy demands, that we consider all 
relevant alternative approaches, and that ultimately they are 
sustainable, both financially and environmentally. I understand 
that the administration is also, through their Alliance for 
Prosperity, creating--in Central America--is looking at 
providing better and more diversed opportunities on energy 
efficiency approaches.
    If confirmed, I look forward to working with you and 
members of this committee in ensuring that we look at all the 
range of options available.
    Senator Barrasso. Yes. But, I would say that, knowing that 
there was significant bipartisan support and an opportunity for 
affordable energy, it is something that I think would benefit 
that area.
    Senator Corker, I am happy to turn my time over to you. I 
know you are on a tighter schedule, and you are chairman of 
this committee. So----
    The Chairman. Well, I really appreciate you letting me do 
this. I know I am--you know I am here for just one of the 
witnesses and--or nominees. But, thank all of you for letting 
me doing--thank you for your service to the country that is 
getting ready to be in, in a different role, anyway.
    To Mr. Egan, I just wanted to ask a few questions. I think 
you know I was going to do this. So, thank you for your 
willingness.
    Congress has long understood that the 2001 AUMF covered al-
Qaeda and the associated forces of al-Qaeda. Would you please 
describe the administration's legal view of why it is that ISIS 
is covered by the 2001 AUMF? And again, thank you for your 
continued service.
    Mr. Egan. Thank you, Mr. Chairman, for your question.
    The administration's position is that the 2001 AUMF does 
cover the ongoing military operations against ISIL. And I think 
the key fact which is reflected most recently in a speech that 
the general counsel from the Defense Department gave--Steven 
Preston--about a month ago, is that ISIL is essentially the 
remnants of a group that was formerly known as Al Qaeda in 
Iraq, a group that we fought in Iraq for a number of years and 
that broke from al-Qaeda in 2013. The administration's view is 
that the break of that group should not change the legal 
authority to use force against that group. Given that ISIL, as 
it is now known, continues to fight Americans and American 
interests in Iraq, they believe that they are the true 
successor to Osama bin Laden, and they are, in fact, competing 
for affiliation of groups with al-Qaeda right now. And that is 
why the administration's view is that ISIL is subject to the 
2001 AUMF.
    The Chairman. And does the administration currently have 
the statutory or article 2 authority to defend the United 
States or coalition-trained forces in Iraq and Syria if those 
forces come under direct threat from ISIS--al-Nusra, Assad 
regime forces, Hezbollah, or any other armed groups? As you 
know, we have a train-and-equip program that is underway. And, 
as you know--well, anyway, I will let you answer the question.
    Mr. Egan. Senator, I should have, of course, noted the 
administration's proposal, which this committee has considered, 
for new authorization to use military force, which would be 
specific to the threat posed by ISIL in Iraq and Syria. The 
administration's view is, at this time, we would have the 
authority to use force against ISIL and against the Nusra Front 
to defend our personnel in Iraq and Syria. I would say, to the 
extent that those personnel came under attack, we would--the 
President would likely have article 2 authority against anyone 
who had attacked them. But, we do have an AUMF that this 
committee has--that you have considered, that reflects the 
President's view on the appropriate scope of military force 
against ISIL in Iraq and Syria.
    The Chairman. Well, actually, that is not true. Martin 
Dempsey and several--Ash Carter and several witnesses who came 
before us said that they did not have the authority to defend 
against Assad if the train-and-equip people that are not our 
folks--they are not part of our coalition, they are people that 
we are training in Syria to deal with both ISIS--well, we--in 
this particular case, ISIS. We may have another program. There 
may be another alleged program against Assad. But, they 
actually say they do not have that authority.
    So, you are saying that you believe we do have that 
authority now to defend them against barrel bombs from Assad.
    They said they had not sought that authority, and there was 
actually an internal debate right now within the administration 
as to whether to seek that authority.
    Mr. Egan. Then, Senator, I apologize. Maybe I misunderstood 
your question. I thought you were asking about our authority to 
defend our----
    The Chairman. Right.
    Mr. Egan [continuing]. Troops who are currently stationed 
in Iraq----
    The Chairman. No.
    Mr. Egan [continuing]. Which I think is a slightly 
different question.
    The Chairman. The Syrian opposition train-and-equip group, 
we do not have that authority, would you agree?
    Mr. Egan. We would have the authority to conduct military 
operations against ISIL and al-Qaeda under the same rationale 
that we do to conduct our own direct operations against those 
groups. I think the question of our authority to use force 
against the Assad regime is a more difficult question, and, you 
are correct, sir, that that is one that is under policy 
consideration within the administration right now.
    The Chairman. To defend the very people that we are 
training to go in and be on the ground.
    Mr. Egan. That is correct.
    The Chairman. Okay.
    I will just ask one more. And I want to thank the chairman 
for allowing me to do this, and the ranking member.
    With United States forces on the ground in Iraq conducting 
activities in both Iraq and in Syria, what authority to protect 
and defend those forces, if any, is currently available under 
the 2001 or 2002 AUMFs? And is there something additional you 
gain under the 2002 AUMF that is not in the 2001 AUMF? I think 
you know the committee is looking at a number of things, one of 
which is the relevance of the 2002 AUMF. And I would appreciate 
it if you would answer that.
    Mr. Egan. Thank you, Senator.
    So, the administration's position is that both the 2001 
AUMF and the 2002 AUMF provide authority for the current 
military operations in Iraq and Syria. The President's AUMF 
proposal would, among other things, repeal the 2002 AUMF. And 
that is because he believes that the authority we have in both 
his proposal and in the 2001 AUMF would be sufficient to 
conduct the operations that are ongoing in Iraq and Syria.
    The Chairman. And so, just to summarize so that you have 
been asked the same question that every other administration 
witness that has these kinds of responsibilities, you believe 
that, today, there is no authorization necessary--no additional 
authorization necessary to deal with ISIS--or ISIL, as you 
would call them--or Daesh, as some may call them.
    Mr. Egan. Senator, as a legal matter, I believe that we 
have the authorization that we need. I think the President has 
been clear that he believes that there are other reasons that 
it is important for this committee to continue its work on the 
AUMF. But, as a legal matter, our view is that we have the 
authority we need to conduct military operations against ISIL.
    The Chairman. Thank you.
    And I will wish you the best, all of you, in your 
nomination testimony.
    And thank you very much for this courtesy, both of you. 
Thank you.
    Senator Barrasso. Senator Udall.
    Senator Udall. Thank you very much, Chairman Barrasso.
    Executive Director Guilarte, the Inter-American Development 
Bank has partnered with the Obama administration on several 
initiatives in Latin America. These include the Micro-Finance 
Growth Fund for the Western Hemisphere, announced at the fifth 
Summit of the Americas in April 2009, and the Women's 
Entrepreneurship in the Americas, announced at the sixth Summit 
of the Americas in April 2012. What are the objectives of these 
initiatives? And what have they accomplished so far?
    Ms. Guilarte. Chairman, I appreciate the question. I am 
sorry. Senator.
    I am not familiar with the initiatives, in entirety, and I 
would appreciate if I can get back to the committee----
    Senator Udall. That would be great.
    Ms. Guilarte [continuing]. On your question.
    Senator Udall. If you could----
    Ms. Guilarte. Yes.
    Senator Udall. If you could answer that for the record, 
that would be terrific.
    Ms. Guilarte. I will.
    Senator Udall. Thank you very much.
    Assistant Secretary Haverkamp, in 2013 President Obama 
issued an Executive order on combating wildlife trafficking, 
with some specific actions for the United States to take. Can 
you describe in more detail what the United States is doing to 
combat wildlife trafficking, and how the State Department is 
working to address these efforts?
    Ms. Haverkamp. Thank you very much, Senator Udall, for that 
question.
    Wildlife trafficking is a real scourge. And it is a 
problem, not just for the obvious reasons of the elimination of 
some iconic species, but it is also an economic problem for 
countries that depend on tourism. It is a national security 
problem because of the involvement of organized crime and 
extreme elements. It is also clearly a biodiversity concern. 
And it is, frankly, a health problem because of the potential 
for these illegally traded species to transmit diseases that 
affect people.
    As you noted, the President has led this initiative. 
Recently, an implementation plan was released, where the 
Department of State, including the Bureau that I hope to lead, 
has a key role, in partnership with the Department of Interior 
and the Department of Justice. The focus that I would see 
having under this initiative is especially in the areas of 
public education, so that people are less likely to demand 
these products, and in the areas of enforcement, as well. 
Enforcement is an especially important concern for OES. There 
is a network of wildlife enforcement networks that OES has 
helped establish around the world, and I would be very 
interested in expanding that and helping to establish 
additional networks around the globe.
    Thank you.
    Senator Udall. Thank you.
    My home State of New Mexico is the world's--has the world's 
first commercial spaceport and two national laboratories. So, 
my State appreciates the role of science--that science and 
technology play in protecting American security and providing 
economic opportunities. What are OES's main priorities with 
regards to space policy and science and technology cooperation?
    Ms. Haverkamp. Thank you for that question.
    In the area of space, in particular, the President, in 
2010, produced a national space policy; and OES's work is 
consistent with and in furtherance of that policy. Key among 
that is the promotion of commercial space activities, including 
the work on Spaceport America that could contribute to 
expanding the opportunities for space transportation.
    Also, OES has an important diplomatic role in working with 
other countries to do things such as address space debris so 
that it is safer to have increased space travel, working, as I 
said, in expanding the opportunities for commercial use of 
space and also working with other countries on things like the 
sustained funding of the International Space Station, that sort 
of thing. But, very much the role of the commercial entities, 
like Spaceport America, is something that we would like to see 
more of.
    Senator Udall. Yes, I appreciate that answer.
    Executive Director Occomy, it is my understanding that, in 
2013, the African Development Bank approved a new 10-year 
strategy which will focus on economic growth plus operational 
priorities, including infrastructure development, regional 
integration, private-sector development, governments and--
governance and accountability, and skills and technology. How 
would you assess the strategy?
    Ms. Occomy. Thank you, Ranking Member Udall, for that 
question.
    I understand that the strategy is going along. One thing 
that I would say is that the African Development Bank has a 
strong partnership with the United States. And part of carrying 
out its strategy is actually to support the United States with 
key initiatives, such as the Power Africa Initiative. The Power 
Africa Initiative is designed to increase electricity access 
across Africa, which is a key priority for the African 
Development Bank, and it is a key directive, in terms of 
implementing one of the core parts of the strategy.
    Again, if confirmed, I will make every effort to work with 
the African Development Bank to effectively implement its 
strategy and to make sure that the elements and the initiatives 
that are implemented are in line with U.S. interests, 
particularly U.S. economic and security interests in Africa.
    Senator Udall. Appreciate that answer.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thanks for 
holding this hearing today. And thanks, to all the witnesses, 
for being here, and your families, as well. Thank you for your 
willingness to serve this country.
    To Mr. Egan, just a couple of quick questions. Last week, 
we had a hearing before the East Asia Subcommittee, which also 
now addresses cyber issues. So, just a couple of questions on 
cyber. How do you envision your office interacting with Chris 
Painter's office as the Coordinator for Cyber Issues?
    Mr. Egan. Thank you, Senator.
    I think that the issues of cybersecurity, cyber defense, 
are increasingly important, both as a policy matter--as you 
know, Chris Painter's office is deeply involved in 
international fora related to those issues--but also as a legal 
matter. I think you can look back to some remarks that my 
predecessor--hopeful predecessor--the Legal Adviser, Harold 
Koh, gave in 2012, where he kind of laid out the framework for 
how we would think about cyber activities from a international 
legal perspective. And I would anticipate, if I were confirmed 
by this committee and by the Congress, working very closely 
with Chris--and others at the State Department--to help further 
develop those rules in the interests of our own national 
security.
    Senator Gardner. Thank you.
    And the Sony cyber attack carried out by North Korea was 
described by the President as an act of cyber vandalism and not 
cyber terrorism. In your legal opinion, where do you cross the 
line between cyber vandalism and cyber terrorism?
    Mr. Egan. Thank you, Senator.
    An important legal question that came up in the context--
would come up in the context of Sony or some future event is 
whether we would consider an act in cyber space a use of force, 
where the responses to use of force would apply. And 
considering a question such as that, I think we would look to 
the effects of the act. Did it result in death, destruction of 
significant amounts of property, and other similarly serious 
acts? I think it is hard to kind of speculate in the abstract, 
but those are the types of factors that I would anticipate 
looking to in addressing a question like yours.
    Senator Gardner. Thank you.
    And, to Ms. Haverkamp, the United States assumed the 
chairmanship of the Arctic Council in 2015. How do you assess 
our viability in working effectively with Russia, given that 
nation's aggression in Ukraine and increased military activity 
in the Arctic?
    Ms. Haverkamp. Thank you very much for that question, 
Senator.
    In the Arctic Council, this is an entity that the United 
States helped create many years ago. It operates by consensus 
among the countries that all have territory north of the Arctic 
Circle. Russia has been a part of that process for a very long 
time. And, while the United States has very significant 
problems with some aspects--significant aspects of Russia's 
policy, so far in the Arctic Council, their interests seem to 
have been to work together with the other countries of that 
region.
    Senator Gardner. So, you do not, at this point, see 
Russia's policies as an obstacle to United States Arctic 
policies or objectives in the region?
    Ms. Haverkamp. The agenda that the United States has put 
forward for its chairmanship is one that the other countries 
had to agree to by consensus. And so, Russia has joined that 
consensus in the objectives of Arctic Ocean stewardship, 
safety, and security; protecting the health and economic well-
being of the Arctic peoples; and addressing the concerns of 
climate change in that region.
    Senator Gardner. So, when it comes to the Arctic, Russia is 
living by the terms of the agreement, or at least what we 
believe the agreement to be?
    Ms. Haverkamp. Well, the U.S. chairmanship just began last 
month. And so, I think--my understanding is that people are 
hopeful. But, it may be too early to tell.
    Senator Gardner. Thank you.
    And I am going to--may need help with the last name. Is it 
Mr. Sabharwal? Very good. One of the primary tasks facing the 
International Monetary Fund is stabilizing the economies of two 
European nations: Greece and Ukraine. The next 1.5 billion 
dollar--billion Euro--excuse me--billion Euro payment from 
Greece to the IMF next month--will Greece be able to make the 
payment, or are we heading toward default?
    Mr. Sabharwal. Thank you for the question, Senator Gardner.
    As you know, when the IMF stepped into Greece, back in 
2010, there was serious risk of contagion effect. And whilst 
Greece perhaps is a small percentage, in terms of GDP, of the 
European and the global economy, it was critical that it steps 
in at that time, together with the other institutions, the 
European Central Bank and the European Commission.
    Greece was supposed to, and did, make a payment in full 
last week. And thereby, this week--this actually opened the 
doors for a new set of discussions later on, taking place this 
week in Latvia, where we do not refer to them as a troika 
anymore, because the Greeks do not like that word. We--the 
institutions--the ECB, the European Commission, and the fund--
are discussing a way forward so that Greece is able to make the 
payments, not just in June, but also in July and August. Of 
course, I am not at the fund at this point, I am not in the 
administration. But, from what I understand, the parties 
intend, including Chancellor Merkel, who wishes that Greece 
stays in the eurozone, the institutions, and, after, let us 
say, about a month of pause in dialogue, everybody is back at 
the table. So, we do believe there will be a constructive 
resolution here.
    Senator Gardner. Obviously, one of the other important 
issues that--I mentioned Ukraine. Just yesterday, the United 
States Government signed a $1 billion loan guarantee for 
Ukraine. On March 11, the IMF approved a $17.5 billion loan 
payment to assist the Government of Ukraine. Recently, I met 
with Finance Minister Natalie Yuresko, and she had assured me 
that Ukraine is on a path to economic reform that would satisfy 
both the needs and requirements of the United States Government 
and other international creditors.
    Do you share in this view?
    Mr. Sabharwal. Thank you for the question.
    So, Ukraine and that part of the world is relatively close 
to me, because I spent part of my life growing up there. And if 
you think--wind the clock back 20 years, 23 years, to the 
origin of Ukraine's independence, it really--what has happened, 
one bad economic policy and one less-than-adequate government 
followed another for 20-plus years. Actually, Natalie is 
someone who, when I was at the EBRD, she was actually working 
for one of the venture funds that we were supporting at the 
time. So, it is great to see actually someone so knowledgeable 
about the region coming from the private sector, being in the 
position that she is right now.
    To answer your question, the IMF had identified about a $40 
billion need at Ukraine as a need to get into a financial and 
stable footing. Part of that 17 and a half billion is coming 
from the IMF; part of it from other institutions. And, of 
course, there is kind of a debt overhang in Ukraine, which I 
understand that the parties are in discussion as to how to 
manage that. As long as those discussions are ongoing, the fund 
will continue to be--proactively support Ukraine with its 
program. From what I understand, there is actually a team on 
the ground right now, a fund team on the ground. And the 
initial indications are that--whilst the issues are difficult, 
that the program is on track.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gardner.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome, to all of our nominees. I wish you good speed in 
your confirmation process.
    I wanted to pick up where Senator Gardner left off, Mr. 
Sabharwal, to talk a little bit more about Ukraine. I am glad 
to know that you have some expertise, or at least some 
familiarity, with the region.
    So, you know, it is always struck me that our policy on 
economic assistance to Ukraine is anchored in the theater of 
the absurd. We are giving them loan guarantees, we are 
partnering with the IMF and other creditors to extend loans 
with fairly high spreads to them. This is in the midst of an 
invasion of their country. We are forcing them to make very 
painful--very necessary, but very painful reforms in exchange 
for this money. It sort of strikes me as if your neighbor's 
house is on fire, and, instead of just delivering them the 
bucket of water, you sit and negotiate with them for a period 
of hours on the terms for the repayment of that water, instead 
of just putting the fire out.
    And so, I wanted to talk to you for a moment about this 
issue of debt reduction. Larry Summers just wrote a column, in 
which he said that the case for debt reduction with respect to 
Ukraine is, ``as strong as any I have encountered in the past 
quarter century.'' And it strikes me as incredibly reasonable 
that the United States should be playing a leading role in 
working with Ukraine's creditors for a writedown of their debt, 
given the fact that they are in the middle of a war in the 
eastern section of their country, and that--they have, frankly, 
undertaken reforms already that are quite impressive in scope 
and dwarf reforms that have been undertaken in prior 
administrations.
    So, I just wanted to get your sense of what you thought the 
importance of debt reduction was, as part of the strategy 
moving forward for Ukraine, and what role you see United States 
representation as part of the IMF infrastructure playing in 
that conversation.
    Mr. Sabharwal. Thank you for the question.
    As I mentioned before, the identified gap of financing in 
Ukraine, from what I understand, is around $40 billion. Part of 
that is filled with the IMF facility of 17 and a half. And, in 
that, about one-five--15 million--billion is to come from, let 
us call it--whether it is a restructuring of the private-sector 
debt, maybe lengthening the maturity, a combination, lowering 
of interest rates. There could be a number of ways that the 
Government of Ukraine can achieve that, vis-a-vis its private-
sector lenders.
    I believe that the fund does not directly engage in the 
negotiations between the Ukrainian Government and the private-
sector bondholders, but I do believe that the position of the 
Treasury and the position of the fund would be an 
encouragement--a strong encouragement of Ukrainian government 
to be at the table, continue good-faith negotiations with the 
private-sector lenders. And, whilst those are actually ongoing, 
the fund can continue with its program and continue to fund 
Ukraine as it tries to come out of its economic difficulties.
    So, in summary, I would say the position would be of 
support, both from the Treasury--significant support--and the 
fund, but not a direct engagement of negotiations between two 
parties.
    Senator Murphy. Thank you for the answer to the question. I 
mean, I do not think that Ukraine, at this point, is largely 
the problem. My understanding is that it is the private 
creditors that are, right now, refusing to engage in a 
constructive process about debt reduction. And so, I would just 
counsel for a--if that is, indeed, the policy, that the IMF and 
our representation at the IMF is not going to get in the 
business of trying to unmask the fact that many of these 
creditors are refusing to engage in constructive conversations 
about debt reduction, I would, frankly, hope that we would have 
a little bit more active presence and participation, given that 
it is our money at risk. The United States has made loan 
guarantees. We have exposure here. And, to an even more 
important degree, if we do not unravel the economic mess in 
Ukraine, which I think debt reduction is a big part of, then 
the world's security is at risk. That is not necessarily the 
IMF's responsibility, but it is certainly a U.S. interest.
    Mr. Sabharwal. Thank you very much, Senator.
    I have taken note. And, if confirmed, I will take up the 
matter within Treasury and at the fund, itself.
    Senator Murphy. Mr. Egan, I just wanted to just build on 
some questions you were getting from Senator Corker. As you 
know, there is a deep disagreement between many of us in the 
administration on this interpretation of whether the existing 
AUMF covers ISIL. I certainly do not believe that it does. I 
think it is a strain, a reach of pretty incredible proportions. 
And part of our worry is that we are not sure where this 
rationale ends, that if ISIL is included under the umbrella of 
an authorization of al-Qaeda, then what about all of the other 
groups that are, as we speak, pledging allegiance to al-Qaeda? 
Does that mean that the 2001 AUMF lives on forever, in that any 
group in any part of the country can find itself now a subject 
of U.S. force simply because it has aligned itself with ISIS?
    Can you share a little bit as to what you believe the tests 
are right now as to how this new doctrine of interpretation 
that the administration is using of the 2001 AUMF plays out 
with respect to these groups around the world who have pledged 
allegiance to ISIL?
    Mr. Egan. Yes. Thank you, Senator, for the question.
    I think the administration's test as to whether a group is 
an associated force of al-Qaeda is something that has been 
talked about for a number of years. And that is, if a group is 
an organized, armed group that has joined the fight against the 
U.S. or coalition partners alongside of al-Qaeda, a group could 
be considered an associated force of al-Qaeda.
    You are correct that our view on ISIL is different.
    Senator Murphy. But, this is different, because this is not 
an associated force of al-Qaeda. This is now an associated 
force of ISIS.
    Mr. Egan. The way that I would think about it, at least, is 
that they are a successor to Al Qaeda in Iraq. They are, in 
fact, the group that was formerly known as Al Qaeda in Iraq, 
which is what our intelligence community would say. They are, 
in fact, al-Qaeda's longest affiliate, going back to the early 
2000s. And I think if you look at the facts behind ISIS and 
their history, ISIL--ISIS and their history, they are probably 
uniquely situated, and it is hard to see another group that 
would fit the bill as they did, a group that we were fighting 
against, going back several years, that continued to fight us, 
that believes that they are the true successors to Osama bin 
Laden. There just are not other groups out there that I am 
aware of that would fit that bill.
    Senator Murphy. And I would just hope that you will help us 
understand some of the terminology that is being used today. In 
the administration's proposed AUMF, they suggest that 
``associated forces'' will be those that are engaged in 
hostilities against the United States or our coalition 
partners. Well, because ISIS now has, arguably, roots in almost 
every corner of the world, and we have coalition partners in 
every corner of the world, you can see a definition by which 
even Boko Haram, if it is engaged in hostilities against a 
group that--against a country which is a coalition partner, now 
all of a sudden falls under an authorization that was intended 
for a very different group.
    And so, I think many of us are worried about the--not the 
2000 AUMF authorization, in and of itself, but this new 
authorization that is proposed, and how big and unwieldy it 
could become. I look forward to working with you on some of 
those very tricky questions.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Murphy.
    Just to follow up, Mr. Egan, a couple of things, in terms 
of treaties, executive actions, where it all fits in. The 
Senate has passed a bipartisan piece of legislation for the 
Iranian deal to make sure that the Senate has an opportunity to 
review that, not at the treaty level, which is a 67, but as a--
more of a disapproval motion, and then whether that is vetoed. 
So, how do you see these differences, in terms of treaty and 
just a disapproval motion? And what qualifies for what?
    Mr. Egan. Thank you for your question, Mr. Chairman.
    If I were confirmed, I think working with this committee on 
issues involving treaties, executive agreements, political 
commitments is one of what I would consider to be my most 
important responsibilities. I think that administrations from 
both parties have had a history of working with the Congress to 
identify agreements that would be treaties subject to the 
treaty clause in the constitution, other agreements that would 
be Executive agreements, and then political commitments of the 
type that the Iran deal is intended to be. And so, working 
through the nuances and making sure that this committee and the 
Congress understands how the administration is approaching a 
particular negotiation, I think, is one of the more important 
responsibilities I would take on if I were confirmed as Legal 
Adviser.
    Senator Barrasso. Yes. I mean, because the United States 
and other nations are attempting to negotiate an agreement on 
international climate later this year. And so, I wonder what 
conditions or provisions in a new climate change agreement 
would require advice and consent of the Senate, which would 
not, and, you know, will you commit to sending any new 
agreement for the Senate for advise and consent?
    Mr. Egan. Senator, I think each agreement would have to be 
looked at in each negotiation kind of on its facts. And I think 
Secretary Kerry, in his testimony before this committee, has 
identified a number of the facts that would be relevant to 
whether an agreement should be considered a treaty, an 
Executive agreement, or a nonbinding commitment. And I am not 
intimately familiar with the facts behind the climate 
negotiations, but I would commit to working with this committee 
to make sure that you were informed of the status of those 
discussions so that you could have an informed view on the 
nature of the arrangement being negotiated.
    Senator Barrasso. Thank you.
    Ms. Haverkamp, the United States is currently participating 
in this climate negotiation, or will be soon, with the goal of 
reaching an agreement at the end of the year. Will you commit 
to ensuring that any new agreement the administration reaches 
internationally on climate change is brought to the Senate for 
advise and consent?
    Ms. Haverkamp. Thank you for the question, Mr. Chairman.
    My understanding of the status of the negotiations is that 
they are still at a fairly early stage, and focused primarily 
on what the substance of the agreement would be, and not yet 
really on the form. So, it is too early, I think, to say what 
might happen.
    I do know that the mandate that the countries are 
negotiating under is one that creates a real opportunity for 
the United States, which is to create an agreement that 
involves contributions from all countries, not just the 
developed countries, which has been the case in the past. But, 
what form those contributions or commitments might take is 
something that has not yet been decided. The mandate gives 
countries a lot of flexibility in what type of decisions or 
agreements might come out of Paris.
    Senator Barrasso. And then, what role would you personally 
be playing in these negotiations, if you are confirmed, in 
terms of the climate change conference and the negotiations?
    Ms. Haverkamp. As I believe you know, the lead for the U.N. 
climate negotiations at the Department of State is the Special 
Envoy, Todd Stern. And his office leads those negotiations. I 
would anticipate cooperating and collaborating with his 
office----
    Senator Barrasso. But, would he report to you? I mean, I am 
trying to get the pecking order.
    Ms. Haverkamp. He reports to Secretary Kerry.
    Senator Barrasso. And you are not in that chain.
    Ms. Haverkamp. Well, the----
    Senator Barrasso. You would not be, if confirmed, in the 
chain.
    Ms. Haverkamp [continuing]. The arrangement is that there 
is a significant office within the Bureau that I would head, 
which is the Office of Global Change, and which provides a lot 
of the staff support, you might even say ``the backbone'' of 
technical expertise, to the Special Envoy's team. And there is 
a role that that group plays, in terms of the negotiations, in 
terms of technical expertise, and also in overseeing some of 
the adaptation foreign assistance funding that the Department 
provides.
    Senator Barrasso. It seems to me there is some duplication 
of climate change resources at the State Department. And so, I 
would ask, Are you committed to eliminating duplication and 
redundancies at the State Department? You know, I am trying to 
figure out, How does the Office of Climate Change in the Bureau 
interact with the Office of Special Climate Envoy? It does 
seem, I think, to a lot of taxpayers, as duplicate use of 
taxpayer dollars, at this point.
    Ms. Haverkamp. Senator, I certainly embrace the idea of the 
Department using taxpayer dollars efficiently and effectively. 
And, if I am confirmed, I would take a very close look at that.
    Looking more broadly at the question of Special 
Representatives and Special Envoys, it does seem that there are 
certainly times when an issue is of a certain priority or 
urgency, such as the U.S. chairmanship of the Arctic Council, 
which calls for bringing in a special office to lead that 
particular effort. Another example is the Ebola crisis, where 
the State Department created a Special Representative for 
Ebola, and that office has just recently been dismantled, and 
then some of that work brought back to OES.
    Senator Barrasso. Thank you.
    Ms. Occomy, the African Development Bank's goal is to 
promote economic growth, reduce poverty in 53 African member 
countries. The U.S. Director should support, I believe, low-
cost, dependable energy sources as a means to help countries 
spur economic growth. Now, these nations include some of the 
poorest countries in the world. African countries have 
substantial fossil fuel resources, including oil, coal, and 
natural gas. Do you believe the African Development Bank should 
end all financing for projects dealing with fossil fuels?
    Ms. Occomy. Thank you, Chairman, for that question.
    As you know, Africa has vast needs. And promoting access to 
affordable, reliable, efficient energy infrastructure and 
resources is actually a major focus of the African Development 
Bank, which includes projects related to coal, natural gas, and 
oil. If confirmed, I would vote in favor of projects that are 
consistent with U.S. policies and laws and are within the 
African Development Bank's operating guidelines.
    You know, what is really interesting is that the 
administration's policies recognize the unique needs of the 
poorest countries, including those in African, and, as such, 
supports the United States to be in favor of coal power 
generation plant projects, but under certain conditions 
whereby, you know, those projects promote the most efficient 
coal technologies and--in the poorest countries without, you 
know, economically viable alternatives.
    So, in essence, you know, the African Development Bank has 
been long committed to addressing the electricity access needs 
across African. And a demonstration of that is the Bank's 
strong collaboration with the United States in the Power Africa 
Initiative. So, if confirmed, I will continue to support and to 
promote the strong collaboration between the United States and 
the African Development Bank, and in the consideration of, you 
know, reliable, affordable energy infrastructure and services 
projects to help address the electricity needs across Africa, 
particularly sub-Saharan Africa.
    Senator Barrasso. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    So, Mr. Egan, can you outline what you do believe are the 
limits--again, in terms of the use of the Authorization for the 
Use of Military Force that was passed in 2001, in terms of the 
President's inherent ability to use it to engage affiliates of 
ISIS, ISIL, or other groups? I mean, Senator Murphy asked about 
Boko Haram. Can you envision a situation where that would be 
something that could be justified as having been authorized 
under the 2001 authorization?
    Mr. Egan. Thank you, Senator.
    I think the limits of the existing 2001 authorization are 
that it authorizes the use of military force against al-Qaeda, 
the Taliban, and their associated forces. And I think 
``associated forces'' is an important limitation. It is not 
enough for a group to declare their affiliation with al-Qaeda 
in order to be covered by the authorization. They actually have 
to be, in international law terms, a cobelligerent with al-
Qaeda. They----
    Senator Markey. What is the phrase?
    Mr. Egan. A cobelligerent, sir. So, somebody who, for 
example, posts on the Internet their agreement with al-Qaeda, 
that would not, in and of itself, be enough to come within the 
AUMF. But, there has to be some degree of organizational 
affiliation between the two groups for the 2001 AUMF to apply.
    Senator Markey. Okay. Are there any geographical limits?
    Mr. Egan. No, Senator, not in the existing 2001 AUMF.
    Senator Markey. Yes. So, any group that could meet the test 
that you laid out, regardless of their geographical proximity 
to Afghanistan, could, in fact, be covered, in terms of the 
deployment of U.S. forces.
    Mr. Egan. I think that that is true, Senator, although I 
think that, if you look at the administration's history of its 
reliance on the 2001 AUMF, the groups against whom we have used 
that authority have been fairly limited, although I recognize 
this committee's and the Congress' questions about our use of 
the authority against ISIL.
    Senator Markey. Yes.
    So, Ms. Haverkamp, on climate change, I think there is big 
breakthrough that occurred between this administration and 
China. And I give you a lot of credit for that. Just a huge 
moment in history. As you are looking forward to Paris, do you 
see some additional opportunities to foster cooperation in a 
way that can advance our goals of reducing the dangerous 
greenhouse gases that are being sent up into the atmosphere?
    Ms. Haverkamp. Thank you very much for that question, 
Senator.
    While much of the attention is focused on Paris, and that 
is a very important forum for making advances on climate 
change, there are other fora where progress can and needs to be 
made. One very important one this year is the Montreal 
Protocol, where there has been significant progress recently on 
countries agreeing to try to address HFCs, which is a potent 
greenhouse gas, in that forum. And if I were confirmed, I would 
want very much to be part of the effort to get agreement by the 
end of this year, in the Montreal Protocol, on adding HFCs to 
its mandate and working toward the elimination of them.
    Senator Markey. Secretary Kerry has done a great job in 
focusing upon illegal fishing. How do you see your role in 
furthering that agenda to make sure that we are stamping out 
illegal fishing around the world?
    Ms. Haverkamp. Thank you for asking. That is a really 
important part of the mandate of the State Department and the 
responsibilities of the Bureau I would hope to lead.
    As you know well, something like a billion people around 
the world depend on the oceans for the protein in their diets. 
And many, many people depend on the fishing industry for their 
livelihoods. Illegal, unreported, unregulated fishing is a very 
big problem. And there is a Presidential task force on that, 
which the State Department cochairs with NOAA. I would hope 
very much to be part of the efforts of implementing the work of 
that task force, which includes ramping up enforcement, 
educating people, expanding partnerships with other countries, 
and developing, for the United States, a traceability program.
    Along those lines, I know the folks at the State Department 
are very pleased that this committee gave its advice and 
consent to the Port State Measures Agreement, which is an 
important aspect of addressing this problem. And I understand 
that tomorrow there may even be markup of implementing 
legislation for that and other fisheries agreements, which I 
very much consider important progress in addressing these 
issues. And, if confirmed, I would very much want to make that 
one of my priorities.
    Senator Markey. Yes. And, you know, on the question of 
exportation of American natural gas, there is no question that 
the more of that that we do is--the harder it is going to be to 
meet our greenhouse gas objectives in the United States, 
because it is going to drive up the price of natural gas here 
and, as a result, make coal much more affordable here in the 
United States for utilities to be burning. So, it is going to 
run totally contrary to the goals that we are going to set, 
going forward. The Energy Information Agency said that there 
could be a 50-percent rise in the price of natural gas here 
domestically if we export all the natural gas that the 
Department of Energy is now approving for its export. So, that 
is just going to really drive a stake into our ability to be 
able to meet the promises that we are going to be making.
    And sometimes I think we forget that we should also be 
focusing on exporting of energy efficiency technologies 
overseas. The Ukraine, for example, is the second least 
efficient energy-efficient country in the world. Only 
Uzbekistan is less energy efficient. So, if they just reached 
Poland's level of efficiency, they would back out all of their 
imported natural gas. And I think sometimes we do a disservice 
to these countries by not first focusing upon energy efficiency 
and promising them the larger projects that ignore the easy 
gains that they can make if they, in fact, use energy 
efficiency in a much more expansive way.
    So, I thank you, Mr. Chairman, very much.
    Senator Barrasso. Well, thank you very much, Senator 
Markey.
    Ms. Haverkamp, November 30, 2012, you wrote a blog at the 
Environmental Defense Fund stating, ``The agriculture sector, 
itself, contributes a substantial share of the emissions that 
cause climate change, often in the form of powerful greenhouse 
gases like methane and nitrous oxide.'' In the same blog, you 
say, ``The major emitters' paucity of vision, ambition, and 
urgency, has brought us to the brink of catastrophe.''
    How has the American farmers, who you state are responsible 
for, ``a substantial share of the emissions that cause climate 
change'' brought us, as you say, ``to the brink of 
catastrophe''?
    Ms. Haverkamp. Thank you, Mr. Chairman.
    The factors that contribute to climate change are many. 
But, the land-use sector is a major contributor, especially in 
developing countries. And that includes deforestation, it 
includes overuse of fertilizers, it includes, frankly, a fair 
amount of methane from rice production around the world. So, I 
think that that is a concern that is a worldwide concern, not 
just one that would affect American farmers. And when I was at 
Environmental Defense Fund, one of the things I worked on was 
addressing deforestation and helping rural farmers in India and 
Vietnam with finding low-carbon ways to improve their 
agricultural practices.
    Senator Barrasso. So, from 2011 to 2014, you were director 
of the International Climate Program at the Environmental 
Defense Fund. While in that position, you wrote another blog 
post stating, ``One of Doha's notable developments was that, 
for the first time, the talks broached the subject of 
compensation from rich countries for the loss and damage 
incurred by the most vulnerable nations due to climate 
change.'' You went on to say, ``The sobering reality is that 
grappling with the dangerous effects of climate change can no 
longer be put off to some future date. They are already 
inflicting harm.''
    So, do you believe U.S. taxpayers owe millions of dollars, 
if not more, in climate reparations to small developing 
nations?
    Ms. Haverkamp. No, Senator, I do not. And the issue of loss 
and damage in the U.N. climate negotiations is one that does 
not need to be put in that box. And my understanding, though I 
am not close to the negotiations currently, is that it is in 
the adaptation context, in helping countries to adapt to 
significant effects of climate change that are coming, and some 
of which are already here.
    Senator Barrasso. But, when you said, ``The dangerous 
effects of climate change can no longer be put off. They are 
inflicting harm.'' You blame the agriculture sector, 
contributing a substantial share of the emissions. So, you talk 
about rich countries, like the United States, owing money to 
developing countries, in the form of climate reparations. So, a 
good--it sounds like you believe American agriculture is 
partially to blame for climate change. As the poultry growers 
in Delaware, cotton farmers, Tennessee, cattle ranchers in 
Wyoming--are they responsible? Do they owe money for the loss 
and damage that they have, under, you know, your phraseology, 
``inflicted on developing nations'' because of climate change?
    Ms. Haverkamp. Mr. Chairman, I do not believe that owing 
reparations is part of what I was talking about. I believe that 
the agricultural sector can contribute in a very positive way 
to addressing climate change. And there are many opportunities, 
frankly, to help agriculture farm more efficiently if they are 
able to use more targeted fertilizer or, for example, again, 
with rice, use less water, so that there is less methane 
produced from the rotting of the submerged vegetation. I think 
that one reason that climate change is a profound challenge is 
that there are so many different contributions to the problem, 
and there are not easy solutions. It is something that requires 
a lot of effort and contributions from everyone
    Senator Barrasso. Thank you.
    Ms. Occomy, in your testimony, you committed to being a 
good steward of U.S. financial contributions to the bank. And 
we agree. It is critically important U.S. resources are used in 
a responsible and efficient manner. So, do you believe 
requiring borrowers--people that come to the bank to borrow 
money--that they accept higher-cost energy projects, in terms 
of only being able to borrow for costs for energy projects that 
are approved by some people that have a specific position, from 
a climate change standpoint--do you believe requiring borrowers 
to accept high-cost energy projects is a responsible use of 
taxpayer dollars when affordable, reliable alternatives are 
readily available?
    Ms. Occomy. Thank you, Chairman Barrasso, for that 
question.
    Again, you know, a major focus of the work of the African 
Development Bank is to promote access to modern, reliable, 
efficient energy services and infrastructure.
    Senator Barrasso. Even if it is more expensive. I mean, 
that is the question. Is modern, newer, not been around for 
thousands of years under the ground, but something built up 
and----
    Ms. Occomy. Absolutely. When a project comes before us to 
review and to consider the U.S.'s determination as to whether 
to support that project, it is important to look actually at 
the full lifecycle costs. Sometimes there may be higher costs 
up front relating to implementing a modern, more efficient form 
of energy. But, over the lifecycle of the project, it should 
not be higher. So, I think it is important, not necessary to 
look just at the upfront investment costs, which seem to be 
higher, but to look at the full lifecycle costs of the project 
and to take that into consideration, and also to look at, 
generally speaking, potential environmental and social costs 
associated with not implementing a more modern, efficient, 
reliable source of energy.
    So, I think it is important, you know, not just to look 
solely at perhaps higher costs up front, but to look at the 
full lifecycle costs of the project, the environmental, social 
costs, and so forth.
    Senator Barrasso. So, the social cost of carbon, the 
lifecycle of the project--in my multiple trips to Africa, 
people wanted affordable--first, they wanted electricity. They 
wanted electricity. I mean, it is an astonishing thing, as you 
travel to these areas that just completely go dark at night, 
due to lack of electricity. They want affordable energy today. 
And I do not think any of the many, many people I visited in so 
many communities give any consideration to the lifecycle cost 
of the project or the social cost of the project. And they 
believe--and I agree with them--that their lives could be made 
so much better with available electricity, affordable 
electricity today.
    And I just--so, I think about this, and I think that--you 
know, should the economic feasibility, the potential to provide 
maximum access to energy with maximum efficiency, not be the 
biggest factors when evaluating projects to get electricity 
that is affordable to those people today? Is that not the thing 
that could actually help so many people worldwide, in terms of 
the long-term--you talk about lifecycle--I am talking about 
their life, that lifecycle of that individual, of that human 
being, who views the whole thing as their lifecycle, not some 
investment project lifecycle.
    Ms. Occomy. Thank you, Chairman.
    You know, as I stated earlier, the administration's 
policies do recognize that there are unique needs for the 
poorest countries, particularly those in Africa. And taking 
that into consideration, under certain administration policies, 
the United States can vote in favor of coal power generation 
plants if it is--under certain conditions, if the project 
promotes more efficient coal technologies and there is no other 
economically viable alternative.
    So, I think the criterion really is, you know, looking at 
all of the alternative approaches to address the energy needs, 
particularly for the poorest countries, and then to figure out, 
What is the most economically viable alternative to address 
that need? So----
    But, the United States can support coal projects in 
consideration of the current policies.
    Senator Barrasso. You know, I just recently learned that 
the African Development Bank--because you mentioned the word 
``voting'' and how you can vote--and I learned that the bank is 
actually having elections for the new president, I think, in a 
couple of weeks. I do not even know how that is structured. 
Could you kind of run through that for me?
    Ms. Occomy. Yes. Thank you for raising that point.
    I welcome the African Development Bank's open, transparent, 
merit-based process for selecting a president. The bank will be 
selecting a president on May 28 at its annual meeting of eight 
candidates who have been put forth by their countries. I am not 
aware of who the United States is supporting of the eight 
candidates. But, if confirmed, I look forward to working with 
the newly elected president to implement his or her's vision 
for the African Development Bank, going forward.
    Senator Barrasso. So, is it an annual--you said at their 
annual meeting they are going to do this, of the eight 
candidates. Is it for a 1-year term, and they are just trying 
to figure out how----
    Ms. Occomy. Right. Oh, I am sorry.
    Senator Barrasso [continuing]. How we decide how that----
    Ms. Occomy. Right.
    Senator Barrasso [continuing]. How we vote for----
    Ms. Occomy. Right. So, at the annual meeting, the president 
is elected. And this is after a very deliberative process, 
where the candidates have put forth their positions at 
different venues. In fact, they were here at the spring 
meetings for the World Bank and the IMF, and there was a side 
meeting where they presented their candidacies and agent--you 
know, agendas for those in the international development 
community. So, in general, it is a very open, you know, 
transparent, merit-based process.
    The--excuse me--the term of the president, I believe, is 
for 4 years. And that term can be--he can--he or she----
    Senator Barrasso. Right.
    Ms. Occomy [continuing]. Can be reelected----
    Senator Barrasso. Run for----
    Ms. Occomy [continuing]. For another term.
    Senator Barrasso. Yes.
    Ms. Occomy. And so, President Kaberuka, the end of his 
second term----
    Senator Barrasso. Oh, so--that is right, it is----
    Ms. Occomy [continuing]. Is coming up.
    Senator Barrasso [continuing]. Open now to----
    Ms. Occomy. And so, now that is why----
    Senator Barrasso [continuing]. Eight people.
    Ms. Occomy [continuing]. They are electing a new president.
    Senator Barrasso. Good.
    Thank you. Thank you. That helps clarify.
    Mr. Sabharwal, a quick question for you. I think Senator 
Gardner asked you about Greece being able to make the recent 
750 million euro payment, almost defaulted. They have another 
payment due in June. You know, I would ask if you would talk a 
little bit more about that, what the impact of a default would 
be, how effective this International Monetary Fund's program is 
in Greece, and what is the argument for having the IMF continue 
to loan more money to Greece, you know, given the situation.
    Mr. Sabharwal. Okay. Thank you for the question, Mr. 
Chairman. So, there are multiple questions there.
    First of all, the significance of putting this policy in 
place was, of course, the contagion effect that was going to be 
significantly affecting the eurozone, which, in turn, as one of 
our major trading partners, going to affect the U.S. economy.
    The second point I would make, that, as a percentage of 
total financing from the institutions, the IMF's share has 
actually decreased from about 26 percent, when it was put in 
place, to about 17 percent today. That is because of the 
different, kind of, repayment terms that there are between the 
IMF and the other institutions that are part of the package, 
the ECP and the European Commission.
    We are encouraged that the discussions and negotiations are 
ongoing between the other parties. There was a period when 
there were no discussions, no constructive dialogue. But, we 
think that that period has passed. We are looking at meetings 
taking place later on this week in Latvia on the matter, and we 
believe that a resolution will be reached that will enable 
Greece to pay its obligations to the IMF as they come due. The 
IMF has really never lost money, so it has always been in a 
position that perhaps some nations have fallen into arrears for 
a period of time--for instance, Liberia--but they have 
recovered very successfully. So, we are fully confident that 
the discussions between the institutions and Greece will be 
successful.
    Senator Barrasso. Thank you.
    Senator Udall, additional questions?
    Senator Udall. I would submit most of my--the rest of my 
questions for the record and just thank the witnesses, and 
thank their families for the very supportive role that they 
play.
    Thank you, Mr. Chairman.
    Senator Barrasso. And you make an excellent point there.
    We thank each of you for your testimony, your willingness 
to serve our Nation. It is my hope each of you will be 
dedicated to advancing American interests all across the globe.
    Members of the committee will have an opportunity, until 
the close of business on Thursday the 21st, to submit questions 
for the record. We ask you try to respond promptly in writing 
to the committee in order your nomination to be considered in a 
timely manner.
    Thank you very much. Congratulations, again.
    Hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


Responses of Mileydi Guilarte, Nominated to be U.S. Alternate Executive 
  Director of the Inter-Ameriocan Development Bank, to Questions from 
                        Members of the Committee

                director-designate guilarte's responses 
                   to questions from senator barrasso
    Question. What are the Inter-American Development Bank's relative 
strengths compared to the other international financial institutions? 
In what areas does the Inter-American Development Bank have a 
comparative advantage?

    Answer. As a regional development bank, the Inter-American 
Development Bank (IDB) has a sole focus on Latin America and the 
Caribbean, and its breadth and depth of knowledge of the economic, 
social, and political dynamics of the region and its borrowing member 
countries is its main relative strength. It has offices in every one of 
its borrowing member countries to ensure continuous policy dialogue and 
supervision of its projects. The IDB has developed broad-based 
sectoral/thematic comparative advantage in infrastructure, particularly 
energy; citizen security; and social sector development, including 
conditional cash transfer programs. The IDB also effectively works 
across countries on regional initiatives, including customs and trade 
facilitation, and transport and energy infrastructure.

    Question. In January 2015, Vice President Biden stated, ``An 
integrated North America, working to promote energy security beyond our 
borders can be a major asset for the entire hemisphere. And it's 
profoundly in the self-interest of the United States to see the 
Caribbean countries succeed as prosperous, secure, energy-independent 
neighbors.''

  <diamond> How can the Inter-American Development Bank help support 
        greater regional interconnection of energy markets and 
        infrastructure?

    Answer. The IDB has a number of ongoing programs that actively 
support greater regional interconnection of energy markets and energy 
infrastructure investment. With significant assistance from the IDB 
over many years, Central American governments recently succeeded in 
integrating their electricity markets through an initiative known as 
the Central American Electrical Interconnection System (SIEPAC). To 
achieve this success, the IDB, in cooperation with the United States, 
facilitated a dialogue in 2013 among Central American governments that 
resulted in a ministerial declaration outlining the governments' 
commitment to regional energy trade. And in November 2014, the Central 
American governments supported a Mesoamerican Energy Investment Summit 
in Guatemala that drew over 500 participants to highlight the 
investment potential in the region and to celebrate the completion of 
the SIEPAC transmission line. The IDB has also provided direct 
financing totaling $253.5 million and an additional $25 million in 
technical assistance to support Central America's energy infrastructure 
and to facilitate creating the regional energy market.
    In addition to Central America, the IDB has been working with 
Andean countries on the Andean regional electric integration process. 
The IDB has provided a variety of technical assistance to help in this 
effort and is the technical secretary of the Andean Electrical 
Interconnection System (SINEA).
    The IDB has done considerable work with the Caribbean to assess the 
potential of regional energy markets, including how best to develop and 
use sustainable sources of energy, such as natural gas and renewable 
energy sources.

    Question. What steps is the Inter-American Development Bank 
currently taking to provide the region with energy security and 
diversification through natural gas?

    Answer. The IDB is committed to financing reliable, low-cost 
generation in Latin America and the Caribbean. The IDB is helping many 
clients develop favorable policy and regulatory frameworks for energy 
access, in addition to support for the private sector to increase the 
use of efficient technologies.
    Now that the SIEPAC is complete, thanks in large part to the 
efforts of the IDB, Central American economies are looking to introduce 
natural gas to substitute for heavy fuel and diesel generation in the 
coming years. To support that effort, the IDB has completed 
prefeasibility studies for natural gas in power generation in both 
Central America and the Caribbean, and is supporting analysis of some 
natural gas projects, including the proposed Mexican natural gas 
pipeline project with El Salvador, Honduras, and Guatemala.

    Question. Do you believe that American liquefied natural gas 
exports would improve energy diversification in the Western Hemisphere 
and promote economic growth in the region?

    Answer. Natural gas can be a useful part of a country's or region's 
energy diversification strategy like renewables and energy efficiency. 
As is the case for any energy infrastructure project, mobilizing the 
finance required to introduce natural gas into a given country requires 
open, transparent, and stable investment climates and appropriate 
legal, policy, and regulatory frameworks.

    Question. What specific actions is the U.S. Government taking to 
work with the Inter-American Development Bank, the World Bank, the 
Organization of American States and American companies in coordinating 
efforts on cross-border trade in electricity, regional interconnection, 
and energy development?

    Answer. Working with regional partners, including the IDB, the 
World Bank, and the Organization of American States (OAS), the United 
States is supporting the Connecting the Americas 2022 initiative 
(Connect 2022) under the Energy and Climate Partnership of the Americas 
(ECPA). The most recent meeting of the ECPA was hosted by the Mexican 
Government on May 25-26, 2015. Connect 2022 seeks to achieve universal 
access to electricity and create a business climate that accelerates 
interconnection and renewable energy. Connect 2022 coordinates 
technical assistance for regulatory and institutional reform, builds on 
extensive bilateral and subregional government efforts to connect grids 
and empower regional energy integration, supports IDB and World Bank 
power sector programs, and catalyzes private investment to promote 
greater access to cleaner and low-cost energy.
    The administration's Central America strategy, as well as the 
Northern Triangle's Alliance for Prosperity--for which the IDB serves 
as Secretariat--also advance Central American energy security by 
emphasizing energy sector reform and development. In addition, 
President Obama, in his April 2015 visit to Panama for the Summit of 
the Americas, launched a new Central American and Caribbean Energy 
Security Task Force to help these smaller markets promote policies that 
attract private investment in lower carbon power sources and reduce 
their dependency on imported oil.
    The U.S. Department of Commerce maintains an Office of Business 
Liaison in the IDB to work with the American business community to 
identify business opportunities, provide advice and counsel on 
strategies for approaching those opportunities, and advocate before the 
IDB and borrowing country governments on behalf of interested American 
businesses.
    The IDB also hosts the Americas Business Dialogue (ABD), which 
serves as a platform for private sector entities in Latin America and 
the Caribbean to engage with governments on potential reforms, and 
which includes efforts to maximize the potential of the region's energy 
market as one of its four areas of focus.

    Question. In 2012, the United States joined leaders of the Western 
Hemisphere in committing to an initiative called ``Connecting the 
Americas 2022.'' The initiative aims to achieve universal access to 
electricity through enhanced electrical interconnection by 2022.

  <diamond> What is the status of this initiative and what progress has 
        been made in reaching the initiative's goals?

    Answer. Working with regional partners, including the IDB, the 
World Bank, and the OAS, the United States is supporting the Connecting 
the Americas 2022 initiative (Connect 2022) under the ECPA. The most 
recent meeting of the ECPA was hosted by the Mexican Government on May 
25-26, 2015. Connect 2022 seeks to achieve universal access to 
electricity and create a business climate that accelerates 
interconnection and renewable energy. Connect 2022 coordinates 
technical assistance for regulatory and institutional reform, builds on 
extensive bilateral and subregional government efforts to connect grids 
and empower regional energy integration, supports IDB and World Bank 
power sector programs, and catalyzes private investment to promote 
greater access to cleaner and low-cost energy.
    Significant process has been made in Central America, which has 
been a leader in furthering the Connect 2022 efforts. SIEPAC and the 
related regional transmission line, completed in September 2014, now 
connects six Central American countries from Guatemala to Panama and 
establishes a regional market.
    In addition to Central America, the IDB and the United States have 
been working with Andean countries on the Andean Regional electric 
integration process. The IDB has provided a variety of technical 
assistance to help in this effort and is the technical secretary of 
SINEA.

    Question. How is the Connecting the Americas 2022 complementing or 
adding to the work being done at Inter-American Development Bank?

    Answer. The IDB has been a key partner in the Connect 2022 
initiative, providing complementary support to the efforts of the 
United States. With significant assistance from the IDB over many 
years, Central American governments recently succeeded in integrating 
their electricity markets through the SIEPAC initiative. To achieve 
this success, the IDB, in cooperation with the United States, 
facilitated a dialogue in 2013 among Central American governments that 
resulted in a ministerial declaration outlining the governments' 
commitment to regional energy trade. And in November 2014, the Central 
American governments supported a Mesoamerican Energy Investment Summit 
in Guatemala that drew over 500 participants to highlight the 
investment potential in the region and to celebrate the completion of 
the SIEPAC transmission line. The IDB also has provided direct 
financing totaling $253.5 million and an additional $25 million in 
technical assistance to support Central America's energy infrastructure 
and to facilitate creating the regional energy market.
    In addition to Central America, the IDB has been working with 
Andean countries on the Andean Regional electric integration process. 
The IDB has provided a variety of technical assistance to help in this 
effort and is the technical secretary of the SINEA.
    The IDB has done considerable work with the Caribbean to assess the 
potential of regional energy markets, including how best to develop and 
use sustainable sources of energy such as natural gas and renewable 
energy sources.

    Question. What kind of technical assistance and capacity-building 
programs is the United States providing to support the Connecting the 
Americas 2022 in Central America, the Caribbean, and the Andean region?

    Answer. In collaboration with the IDB, the State Department and 
USAID are providing policy and technical assistance to improve regional 
electricity market development and trade in Central America. 
Additionally, the U.S. and Mexican Governments have been working with 
Guatemala on plans to pass through Mexican electricity and gas to 
benefit Central America as a whole.
    In Chile and Peru, the State Department is working with utilities 
to assess interconnection options in support of connecting the Chilean 
and Andean electrical grids.
    In the Caribbean, the U.S. Trade and Development Agency (USTDA) and 
the Overseas Private Investment Corporation (OPIC), in coordination 
with the State Department, USAID, and the Department of Energy, are 
launching a $20 million facility to encourage investment in clean 
energy projects in the region. The facility will provide early-stage 
funding to catalyze greater private and public sector investment in 
clean energy projects.

    Question. The United States is the largest contributor to the 
Inter-American Development Bank. Regional developing countries are 
required to have a controlling majority vote at the Bank. A March 2013 
report by the Inter-American Development Bank's Office of Evaluation 
and Oversight stated that the effectiveness of reforms has been 
limited. The report found that, ``reforms face inherent tensions with 
the demand-driven orientation of the Bank, and approaches are needed 
that can help meaningfully identify where Bank capabilities and 
borrower demand intersect.''

    Please describe the steps you would take to improve the 
effectiveness of the reforms.

    Answer. If confirmed, I would work closely with IDB Management and 
fellow Board members to follow up on the implementation of the 
recommendations from the 2013 Office of Evaluation and Oversight Report 
to improve and deepen the effectiveness of the reforms undertaken as 
part of the Ninth General Capital Increase of the IDB. Some examples of 
those reforms are the recently approved revision of the policy for the 
Independent Consultation and Investigation Mechanism, the IDB's 
grievance mechanism for people affected by IDB projects; the update of 
the IDB's macroeconomic sustainability assessments; the IDB Governors' 
approval of a reform to consolidate the IDB's private sector activities 
within one entity; and improvements to IDB's framework for measuring 
development effectiveness, including enhancing its project completion 
reports and the guidelines for country strategies. If confirmed, I will 
encourage the Office of Evaluation and Oversight to continue reporting 
independently on the status of reforms and seek full implementation of 
action plans from IDB Management to continue improving the 
effectiveness of those reforms.

    Question. What reforms would be your top priority at the Inter-
American Development Bank?

    Answer. If confirmed, I would work to ensure that the consolidation 
of the private sector activities of the IDB is implemented in a way 
that enhances efficiency and improves development effectiveness. I 
would promote sound use of financial resources, including through 
adherence to capital adequacy policies and prudential limits. I would 
also work to further the IDB's results focus to improve the impact of 
IDB activities in addressing inequality and bolstering growth in a 
region that is critical to the national and economic security of the 
United States. Given the IDB's pivotal role as Secretariat for the 
Northern Triangle's Alliance for Prosperity, I would also work to 
ensure that U.S. national interests remain a priority through the 
administration's Central America strategy.

    Question. Do you believe meaningful reforms can take place while 
borrower countries maintain a majority of the voting power?

    Answer. Yes. I believe that a number of meaningful reforms have 
already taken place at the IDB, particularly in the context of the 
Ninth General Capital Increase. As the majority owners of the IDB, the 
borrowing member countries have a strong interest in ensuring that the 
IDB's resources are deployed effectively and efficiently to address the 
challenges in the region. If confirmed, I will seek to work with all 
shareholders, including the borrowing member countries, to further 
implement and deepen the reform agenda at the IDB.

                               __________

    Responses of Jennifer Ann Haverkamp, Nominated to be Assistant 
   Secretary of State for Oceans and International Environmental and 
     Scientific Affairs, to Questions from Members of the Committee

          assistant secretary-designate haverkamp's responses 
                   to questions from senator barrasso
    Question. Are you committed to eliminating duplication and 
redundancies at the Department of State?

    Answer. I strongly support using taxpayer funds in the most 
effective and efficient manner. In properly managing the Department's 
programs and resources, it is of fundamental importance to continually 
look for and implement ways to improve the economy, efficiency, and 
effectiveness of operations.

    Question. In fiscal year 2014, what percentage of the work of the 
Bureau of Oceans and International Environment and Scientific Affairs 
involved international climate change? In fiscal year 2014, what 
percentage of the Bureau's funding was spent on international climate 
change programs?

    Answer. My understanding is that approximately 14 percent of the 
Bureau's salaries and operating expenses in fiscal year 2014 involved 
international climate change. Approximately 78 percent of the Bureau's 
Fiscal Year 2014 Economic Support Fund (ESF) resources were allocated 
for adaptation, clean energy and sustainable landscapes programs.

    Question. Please provide examples of specific projects funded by 
the Bureau for adaptation, clean energy, and sustainable landscapes in 
fiscal year 2014. What were the tangible results and impacts of the 
funding?

    Answer. In the case of adaptation, my understanding is that the OES 
Bureau provides funding for two multilateral specialized adaptation 
funds, the Least Developed Countries Fund (LDCF) and the Special 
Climate Change Fund (SCCF), which support hard-won development gains in 
the face of climate variability and change. Examples include:

  <diamond> In Nepal, the LDCF is providing community-based early flood 
        warning to nearly 32,000 vulnerable people and reducing the 
        risk of glacial lake outburst floods through artificial 
        drainage.
  <diamond> In Indonesia, the SCCF is strengthening the resilience of 
        40 rural communities by adjusting subsistence farming practices 
        to be more resilient to variable and extreme climatic 
        conditions and helping communities to improve water resources 
        in the face of projected changes in rainfall patterns.
  <diamond> In the Philippines, the SCCF is strengthening the 
        resilience of vulnerable farming communities by stimulating 
        private sector engagement in climate risk reduction, developing 
        Weather Index Based Insurance and financial literacy training 
        for farming households, preparing early warning system plans, 
        and conducting vulnerability adaptation assessments.

    In the case of clean energy, my understanding is that, with $20 
million the OES Bureau has provided to the U.S.-Africa Clean Energy 
Finance Initiative (U.S.-ACEF), to date, OPIC and USTDA expect to 
leverage a total of nearly $2 billion in investment to increase access 
to clean energy for Africa. The U.S.-ACEF program is designed to help 
promising clean energy projects develop into viable candidates for 
financing by providing small amounts of early-stage funding for 
essential inputs, such as technical and feasibility studies. U.S.-ACEF 
serves a catalytic role to advance these projects and help attract far 
larger levels of private sector follow-on investment, which can help to 
fuel economic growth in the region while providing access to modern 
clean energy services. For example, in Tanzania, $600,000 was made 
available to a U.S. energy developer to help fund a feasibility study 
which is expected to mobilize $139 million in capital for a 55-megawatt 
solar photovoltaic project at the University of Dodoma (UDOM) campus.
    In the case of sustainable landscapes, my understanding is that the 
OES Bureau supports the SilvaCarbon program, a joint effort of eight 
U.S. Government agencies that enables developing countries to better 
understand and manage their forests by leveraging U.S. technical 
expertise on forest and forest carbon mapping and monitoring. This 
technical capacity provides an essential foundation to enable countries 
to prioritize their efforts to preserve forests, reducing emissions 
from deforestation and safeguarding other benefits like biodiversity 
and water quality. With technical assistance from SilvaCarbon:

  <diamond> Ecuador has completed its first national forest inventory;
  <diamond> Colombia was able to generate estimates of forest cover 
        change annually for the first time;
  <diamond> Gabon has developed a draft national land-use plan; and
  <diamond> Peru finalized its first forest dynamics map, which 
        provides essential information needed to estimate forest cover 
        and deforestation rates.

    Question. How does the Office of Climate Change in this Bureau 
interact with the Office of the Special Climate Envoy Todd Stern? In 
what areas is there overlap in responsibilities and duties?

    Answer. My understanding is that the Special Envoy for Climate 
Change leads the international climate change negotiations for the U.S. 
Government and oversees policy aspects of international climate 
activities in the State Department. The Special Envoy has an office 
focused on high-level meetings, negotiations, and policymaking.
    OES's Office of Global Change handles a large portfolio of issues. 
In relation to the international climate change negotiations, the 
office provides staff-level support for the Special Envoy and Deputy 
Special Envoys. Its officers serve as working-level negotiators, and 
the office provides staff support for high-level diplomatic meetings to 
advance U.S. objectives. These distinct roles are complementary and I 
understand that there is no duplication in duties between these 
offices, which work closely together.

    Question. Please describe the current staffing, resources, and 
responsibilities of the Office of Climate Change. In addition, please 
describe when the Office was created and under what statutory 
authority.

    Answer. At the present time, the Office of Global Change in the OES 
Bureau has 18 permanent, full-time direct hire staff. It also has 
nonpermanent positions, including six fellows and temporary staff, and 
five contractors. The Office of Global Change provides staff-level 
support and technical expertise for the Special Envoy and Deputy 
Special Envoys in international negotiations related to climate change, 
supports several international climate change initiatives, and oversees 
implementation of OES programs related to climate change. The office 
has expertise on issues such as climate change mitigation, adaptation, 
sustainable landscapes, finance, science, and technology, as well as on 
management of programs. The Office of Global Change was established in 
1989 pursuant to constitutional and statutory authorities regarding 
management of the day-to-day conduct of U.S. foreign relations.

    Question. Please describe the current staffing, resources, and 
responsibilities of the Office of the Special Climate Envoy. In 
addition, please describe when the Office was created and under what 
statutory authority.

    Answer. The Special Envoy for Climate Change serves as the chief 
U.S. negotiator under the United Nations Framework Convention on 
Climate Change (UNFCCC), which was ratified by the United States on 
October 15, 1992. In this role, he helps develop the administration's 
international policy on climate, and represents the United States 
internationally at the ministerial-level in all bilateral and 
multilateral negotiations regarding climate change. Todd Stern was 
appointed on January 26, 2009.
    The Special Envoy's office was established under the constitutional 
and statutory authorities regarding management of the day-to-day 
conduct of U.S. foreign relations. The Special Envoy for Climate Change 
and his immediate office were established to provide greater senior 
level focus to ensure that the interests of the United States are 
adequately protected, given the complex and high-level nature of the 
international climate discussions.
    The Special Envoy's office coordinates the deployment of federal 
expertise and resources in the UNFCCC negotiating process, helping to 
ensure the best possible outcomes for the range of U.S. stakeholders. 
In addition to the Special Envoy, the office currently has seven full-
time staff and three contractors.

    Question. The United States is currently participating in 
international climate negotiations with the goal of reaching an 
agreement by the end of the year.

  <diamond> What form of an international agreement is the United 
        States advocating for at the international climate change 
        negotiations?
  <diamond> Will the agreement be legally binding on the United States 
        and other countries, including funding commitments for any 
        provision contained within the agreement?
  <diamond> What kinds of agreements or commitments currently under 
        negotiation would require congressional action, such as the 
        advice and consent of the Senate, and what might not? Please 
        explain your reasoning.

    Answer. A 2011 decision of the Parties to the United Nations 
Framework Convention on Climate Change, adopted in Durban, South 
Africa, launched a process to develop a ``protocol, another legal 
instrument, or an agreed outcome with legal force under the Convention 
applicable to all Parties. . . . ''
    The Durban decision makes clear that the purpose of a future Paris 
agreement is to further the objective of the Convention (i.e., to avoid 
dangerous anthropogenic interference with the climate), yet leaves the 
Parties with substantial flexibility regarding its form and the legal 
nature of its provisions.
    It is my understanding that at this stage, the international 
discussions are more focused on the substance of the agreement than on 
issues related to its form, such as whether it should be a protocol or 
whether particular provisions should be legally binding. The 
administration has indicated that the United States seeks an agreement 
that is ambitious in light of the climate challenge; that reflects 
nationally determined mitigation efforts in line with national 
circumstances and capabilities; that provides for accountability with 
respect to such efforts; that takes account of evolving emissions and 
economic trends; and that promotes adaptation by parties to climate 
impacts.

  <diamond> Can the administration enter into a politically binding 
        international agreement without congressional approval?

    Answer. I understand the term ``politically binding'' in your 
question to refer to arrangements that do not give rise to legal 
obligations under U.S. or international law. It is my understanding 
that such nonbinding arrangements have been utilized by Presidents of 
both parties throughout our history to address a range of diplomatic 
and national security matters and do not require congressional 
approval.

  <diamond> What state, local governing entity or community would not 
        be subject to a politically binding treaty?

    Answer. I understand the term ``politically binding'' in your 
question to refer to arrangements that do not give rise to legal 
obligations under U.S. or international law. Accordingly, any such 
nonbinding arrangements would create no legal obligations for any 
state, local governing entity, or community.

  <diamond> How does the administration plan to legally commit to the 
        President's November 2014 pledge to cut U.S. greenhouse gas 
        emission to 26-28 percent below 2005 levels by 2025?

    Answer. I understand that the administration does not intend to 
legally commit the United States to the 26-28 percent target. Moreover, 
I understand that the administration favors an approach to the Paris 
agreement under which emissions targets are not legally binding.

  <diamond> Please describe any existing statutory authorities the 
        administration may expect to rely on to implement the Intended 
        Nationally Determined Contribution (INDC.) Does the 
        administration believe it has the full statutory authority to 
        implement its recently announced INDC now or will the 
        administration need Congress to provide additional authorities?

    Answer. I understand that the administration carefully evaluated 
available statutory authorities in the development of the INDC. My 
understanding is that several U.S. laws, as well as existing and 
proposed regulations thereunder, are relevant to the implementation of 
the U.S. target, including the Clean Air Act (42 U.S.C. Sec. 7401 et 
seq.), the Energy Policy Act (42 U.S.C. Sec. 13201 et seq.), and the 
Energy Independence and Security Act (42 U.S.C. Sec. 17001 et seq.). 
Since 2009, the United States has completed the following regulatory 
actions:
    Under the Clean Air Act, the United States Department of 
Transportation and the United States Environmental Protection Agency 
adopted fuel economy standards for light-duty vehicles for model years 
2012-2025 and for heavy-duty vehicles for model years 2014-2018.
    Under the Energy Policy Act and the Energy Independence and 
Security Act, the United States Department of Energy has finalized 
multiple measures addressing buildings sector emissions including 
energy conservation standards for 29 categories of appliances and 
equipment as well as a building code determination for commercial 
buildings.
    Under the Clean Air Act, the United States Environmental Protection 
Agency has approved the use of specific alternatives to high-global 
warming potential hydrofluorocarbons (high-GWP HFCs) in certain 
applications through the Significant New Alternatives Policy program.
    At this time:
    Under the Clean Air Act, the United States Environmental Protection 
Agency is moving to finalize by summer 2015 regulations to cut carbon 
pollution from new and existing power plants.
    Under the Clean Air Act, the United States Department of 
Transportation and the United States Environmental Protection Agency 
are moving to promulgate post-2018 fuel economy standards for heavy-
duty vehicles.
    Under the Clean Air Act, the United States Environmental Protection 
Agency is developing standards to address methane emissions from 
landfills and the oil and gas sector.
    Under the Clean Air Act, the United States Environmental Protection 
Agency is moving to reduce the use and emissions of high-GWP HFCs 
through the Significant New Alternatives Policy program.
    Under the Energy Policy Act and the Energy Independence and 
Security Act, the United States Department of Energy is continuing to 
reduce buildings sector emissions including by promulgating energy 
conservation standards for a broad range of appliances and equipment, 
as well as a building code determination for residential buildings.

  <diamond> What was the process the administration used for 
        determining the U.S. commitment? What consultations and inputs 
        from Congress and the American public did the administration 
        seek when working to establish the U.S. commitment?

    Answer. I understand that the administration undertook an 
extensive, rigorous interagency process to identify and assess 
potential emission reductions that are both achievable and cost 
effective. This process examined options to reduce emissions of all 
greenhouse gases in every economic sector through existing statutory 
and executive authorities and voluntary programs.
    It is my understanding that agencies responsible for implementing 
these existing statutory and executive authorities and voluntary 
programs have had wide ranging discussions with stakeholders from the 
public, private and nonprofit sector, including formal and informal 
consultations with Congress.

  <diamond> What role does the Bureau of Oceans and International 
        Environment and Scientific Affairs have in the international 
        climate change negotiations?

    Answer. The Office of Global Change in the Bureau of Oceans and 
International Environmental and Scientific Affairs handles a large 
portfolio of issues. In relation to the international climate change 
negotiations, the office provides staff-level support and technical 
expertise for the Special Envoy and support for high-level diplomatic 
meetings to advance U.S. objectives, and its staff serve as working-
level negotiators.

  <diamond> What role will you play in the negotiations? What specific 
        advice, analysis, information, and support is the Office of 
        Climate providing for the international climate negotiations?

    Answer. It is my understanding that over the past 14 years, under 
this administration and the Bush administration, the OES Assistant 
Secretary did not play a direct, formal role in the international 
climate change negotiations.
    The Office of Global Change in the OES Bureau provides staff-level 
support and technical expertise for the Special Envoy and Deputy 
Special Envoy in the negotiations. That includes expertise on issues 
such as climate change mitigation, adaptation, sustainable landscapes, 
finance, science, and technology, as well as program management and 
support for high-level diplomatic meetings. Office staff also serve as 
working-level negotiators.

    Question. In November 2014, President Obama announced a pledge of 
$3 billion to create a brand new Global Climate Fund. His fiscal year 
2016 budget request asks for $500 million to start funding that pledge.

  <diamond> What was the process the administration used for 
        determining the appropriate commitment to the Global Climate 
        Fund? What consultations did the administration have with 
        Congress on this commitment?

    Answer. It is my understanding that the administration undertook an 
interagency discussion among staff of the Department of Treasury, 
Department of State, Office of Management and Budget and the National 
Security Council to determine what the U.S. pledge should be as a good 
base of funding in the Green Climate Fund's initial few years. The key 
reference point was the Bush administration's $2 billion pledge to the 
Climate Investment Funds (CIFs), which that administration had planned 
to provide over a 3-year period. In light of a legislative requirement 
related to a multiyear pledge, I understand that the administration 
consulted with relevant House and Senate staff 10 days before the GCF 
pledge was announced, and then met with staff on multiple other 
occasions during those 10 days.

  <diamond> What impact evaluations have been completed on the previous 
        $2 billion in U.S. funding for international climate change 
        already provided to the Climate Investment Funds?

    Answer. My understanding is that an independent evaluation of the 
Climate Investment Funds (CIFs), carried out by the independent 
evaluation departments of the multilateral development banks, was 
released in June 2014 and is available at http://www.cifevaluation.org. 
Because of the early stage of most CIF investments (many of which are 
of very long duration), the evaluation focused more on institutional 
issues such as the process for developing country investment plans. 
Further CIF project-level evaluations will be conducted in the future. 
Each multilateral development bank that participates in the CIFs is 
including CIF programs or projects into their evaluation work program. 
Funding is being set aside in the CIF budget to support impact 
evaluations and other evaluation tools.

  <diamond> When will the Climate Investment Funds be closed down? What 
        will happen to the funding that remains or comes back into the 
        fund?

    Answer. My understanding is that the Trust Fund Committees of the 
Climate Investment Funds will make a decision in the future about the 
sunset of the CIFs, and when not to accept new contributions into the 
Funds. Then, once all contributions have been committed to projects, no 
new projects will be approved. Because the Climate Investment Funds are 
intended to sunset, my understanding is that financial reflows will 
probably not be used to finance future projects.

  <diamond> Why is it responsible for the administration to recommend 
        closing down the current Climate Investment Funds and creating 
        a larger brand new Global Climate Fund if no evaluations have 
        been done on the impact and results of U.S. funding to the 
        current international climate change programs?

    Answer. My understanding is that the administration supports having 
a robust evaluation program for the CIFs in order to inform future 
programs at the Green Climate Fund and elsewhere. An independent 
evaluation of the CIFs was released in June 2014 and is available at 
http://www.cifevaluation.org. Because of the early stage of most CIF 
investments (many of which are of very long duration), this evaluation 
focused more on institutional issues such as the process for developing 
country investment plans. We expect that further CIF project-level 
evaluations will be conducted in the future.

                               __________

Responses of Marcia Denise Occomy, Nominated to be U.S. Director of the 
  African Development Bank, to Questions from Members of the Committee

                 director-designate occomy's responses 
                   to questions from senator barrasso
    Question. Do you believe the African Development Bank should 
equally support all types of energy resources in order to provide sub-
Saharan Africa with the electricity it needs to grow their way out of 
poverty?

    Answer. Facilitating energy access and energy security for the 
people of Africa is a priority for the African Development Bank and the 
United States. I understand that energy access is essential to 
promoting the growth of African economies. If confirmed, I will be 
committed to promoting energy access through an appropriate mix of 
energy resources consistent with U.S. laws and policies and the African 
Development Bank's own operating guidelines and policies.

    Question. When reviewing projects at the African Development Bank, 
what criterion is used in determining whether the United States will 
support the project?

    Answer. In reviewing projects at the African Development Bank 
(AfDB), the United States takes into account a range of different 
factors to determine whether or not to support a specific project. 
These factors include the degree to which the project will support a 
country's efforts to reduce poverty, whether the project is well-
designed and mitigates foreseeable risks, whether the project is as 
sustainable (financially and economically) as possible, and whether the 
project meets both the AfDB's policies and U.S. legislative provisions.

    Question. Do you believe economic feasibility and the potential to 
provide maximum access to energy with maximum efficiency must be the 
biggest factors when evaluating projects?

    Answer. Economic feasibility and the degree to which a project 
increases energy access are important, but not the only factors in 
evaluating energy projects. The design of effective energy projects 
will also take into account other factors, such as improving the long-
term financial sustainability of the country's energy sector; reducing 
the potential for corruption in the project; and mitigating the 
environmental, health, and social impacts of the project.

    Question. Coal provides a low cost and reliable energy source which 
is important to countries looking for assistance in poverty alleviation 
and economic development. Do you agree with this statement? If not, why 
not?

    Answer. The U.S. Government is committed to providing energy access 
and energy security to people around the globe as an important element 
of economic development. In the poorest countries, where energy needs 
are often the greatest, I understand that the President's Climate 
Action Plan allows for support for new coal power-generation projects 
under certain conditions that focus on promoting the most efficient 
coal technologies and where no other economically viable alternative 
exists. In wealthier countries, the U.S. may support new coal-fired 
power projects that deploy carbon capture and sequestration (CCS) 
technologies.

    Question. Please list and provide information on all the countries 
in the African Development Bank that have oil, natural gas, and coal 
resources.

    Answer. According to the latest data available from the Energy 
Information Agency at the Department of Energy, the African Development 
Bank's regional member countries with the largest reserves of oil are 
Libya, Nigeria, Algeria, and Angola. The largest proved reserves of 
natural gas are in Nigeria, Algeria, Mozambique, Egypt, Libya, and 
Angola. The largest recoverable reserves of coal are in South Africa, 
Zimbabwe, Mozambique, Tanzania, and Nigeria. Complete data for all 
countries with any proven reserves are below [Figure 1.] .

    Question. What proportion of procurement contracts at the African 
Development Bank and the African Development Fund is awarded to U.S. 
businesses? What proportion of these contracts is awarded to Chinese 
businesses? What specific steps would you advocate for at the African 
Development Bank and the African Development Fund to increase the 
percentage of contracts awarded to U.S. companies?

    Answer. In 2014, U.S. businesses received 0.54 percent of all 
procurement contracts by number and 0.26 percent of procurement 
contracts by value. Chinese business received 1.94 percent of contracts 
by number and 24.28 percent by value. If confirmed, I will advocate for 
maintaining transparent and competitive procurement practices and an 
increased focus on a value-for-money approach that considers costs over 
the full life cycle of projects rather than merely the lowest priced 
bid. U.S. firms are typically better positioned when such a value-for-
money approach is taken. I understand that the African Development Bank 
is currently reviewing its procurement policies, which provides an 
opportunity to encourage a better focus on value-for-money approach to 
be reflected in the African Development Bank's updated procurement 
policies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Figure 1.

    Question. What do you believe is an appropriate role for China to 
play at the African Development Bank and African Development Fund?

    Answer. China is a nonregional shareholder of the African 
Development Bank and a donor to the African Development Fund. China 
should continue to engage constructively with other AfDB shareholders 
and AfDB Management to support Africa's development. As China's income 
and role in the global economy grows, it should support the poorest 
countries by contributing more to the concessional window, the African 
Development Fund.

    Question. What is your view of China's recently launched Asian 
Infrastructure Investment Bank and the Chinese investment efforts in 
Africa? How will these efforts complement or duplicate efforts at the 
African Development Bank?

    Answer. It is widely acknowledge that there is a pressing need to 
enhance infrastructure investment in Africa and around the world. China 
can provide an important contribution to Africa's development through 
its infrastructure investments, provided they maintain high-quality 
standards and operate within strong safeguards including established 
fiduciary, economic, and social safeguards. I believe that any new 
multilateral financial institution should share the international 
community's strong commitment to the high-quality standards of the 
existing multilateral development banks, including the African 
Development Bank. My understanding is that the AIIB intends to focus 
exclusively in Asia. However, if confirmed, I would encourage the 
African Development Bank to seek to ensure that any institution 
providing financing in Africa maintains these high-quality standards 
and operational safeguards.

    Question. Please describe the planned $2 billion African 
Development Bank--People's Bank of China African Common Growth Fund and 
the U.S. view of this initiative. Is the United States considering a 
similar arrangement for the administration's Power Africa Initiative?

    Answer. China created and will contribute $2 billion, over 10 
years, to the Africa Growing Together Fund (AGTF) that will be housed 
at the AfDB. The AGTF will cofinance projects eligible for AfDB 
financing using a variety of funding modalities. The United States 
welcomes the additional financing that China will be making available 
to support Africa's development through the AGTF, especially as all 
projects financed from the AGTF must use the AfDB's standards, 
including those related to environmental and social safeguards and 
procurement rules.
    While the United States has not considered a designated funding 
mechanism for its Power Africa partnership with the AfDB, the AfDB 
itself has pledged $3 billion of its own funds toward reaching the 
goals set by Power Africa. Power Africa is working closely with the 
AfDB to identify priority Power Africa transactions and allocate 
resources accordingly. In addition, both the AfDB and Power Africa have 
seconded staff members to the other's organization to enhance 
coordination. Power Africa has also provided $3 million to the African 
Legal Support Facility, an AfDB initiative that strengthens African 
countries' legal expertise and negotiating capacity in debt management 
and litigation, natural resources and extractive industries management 
and contracting, investment agreements, and related commercial and 
business transactions.

    Question. The African Development Bank President Kaberuka 
recommended combining the African Development Bank and the African 
Development Fund lending windows into a single facility.

  <diamond> Do you support this proposal? Did the 13th replenishment of 
        the African Development Fund replenishment negotiations address 
        this matter? What are the benefits and risks of providing 
        market-rate and concessional assistance through the same 
        facility?

    Answer. I understand that while President Kaberuka expressed 
interest in this idea, AfDB Management has not actively proposed it 
during the negotiations on the 13th replenishment of the African 
Development Fund (AfDF) or since. The United States welcomes ideas from 
the multilateral development banks on how they can use innovative 
financial options to expand their lending capacity without additional 
resources from shareholders, and I understand that Asian Development 
Bank shareholders unanimously approved a similar proposal recently. I 
also understand that this approach would be more difficult for the AfDB 
due to the status of the AfDB and the AfDF as separate legal entities. 
The main benefit of such an approach is that the equity built up in the 
concessional window can be leveraged to create additional concessional 
and nonconcessional lending capacity. Risks include the need to ensure 
that the extra resources generated continue to benefit poorer countries 
and the need to maintain an appropriate level of concessionality in 
lending to these countries.

    Question. The elections for a new President of the African 
Development Bank is taking place on May 28, 2015.

  <diamond> Who is currently running for President of the African 
        Development Bank and what are the main priorities of each of 
        the candidates?

    Answer. Dr. Akinwumi Adesina, the Minister of Agriculture from 
Nigeria, was elected as the next President of the AfDB on May 28, 2015. 
The other candidates were:

      Jaloul Ayed, former Minister of Finance, Tunisia;
      Sufian Ahmed Beker, Minister of Finance, Ethiopia;
      Kordje Bedoumra, Minister of Finance, Chad;
      Cristina Duarte, Minister of Finance, Cabo Verde;
      Samura Kamara, Minister of Foreign Affairs, Sierra Leone;
      Thomas Zondo Sakala, former Vice President of the AfDB, Zimbabwe; 
and
      Birama Sidibe, Vice President of the Islamic Development Bank, 
Mali.

    Each candidate's vision statement is available at www.afdb.org/en/
news-and- events/article/eight-candidates-in-the-running-for-the-next-
afdb-presidency-submit-their-vision-for-the-bank-and-africa-14111/. All 
of the candidates prioritized building on the legacy of President 
Donald Kaberuka, supporting the private sector in Africa, reducing 
Africa's infrastructure deficit, enhancing inclusive growth and 
creating jobs for youth and women, building the capacity of fragile and 
conflict-affected states, and attracting the staff that the AfDB needs 
to play a leading role in these areas.

    Question. What criterion does the United States use when deciding 
who to vote for as President of the Bank? What is your evaluation of 
these candidates?

    Answer. The United States seeks candidates with a strong vision for 
supporting private sector-led growth and poverty reduction in Africa, a 
sound understanding of the AfDB's comparative advantages, a clear 
agenda for implementing the institutional reforms needed to make the 
AfDB more effective and to attract and retain high-quality managers and 
staff, and the ability to represent the AfDB as a leading development 
institution in Africa and globally. I welcome that there were several 
qualified candidates contesting the election.

    Question. Which of the candidates is the United States supporting 
at the May 28, 2015 election?

    Answer. The United States welcomed that there were several well-
qualified candidates that contested the election. I was not involved in 
the voting process for the United States. If confirmed, I look forward 
to working with Dr. Adesina to continue strengthening the AfDB so that 
it remains a leading contributor to Africa's development and a key 
partner for U.S. development efforts.

                               __________

  Responses of Brian James Egan, Nominated to be Legal Adviser to the 
    Department of State, to Questions from Members of the Committee

                       brian egan's responses to 
                     questions from senator corker
    Question. Congress has long understood that the 2001 AUMF covered: 
(1) al-Qaeda; and (2) ``associated forces'' of al-Qaeda. Please 
describe the administration's legal view of why it is that ISIS is 
covered by the 2001 AUMF.

    Answer. The 2001 AUMF authorizes the use of force against al-Qaeda, 
the Taliban, and associated forces. Based on ISIL's long-standing 
relationship with al-Qaeda and Usama bin Laden; its long history of 
conducting, and continued desire to conduct, attacks against U.S. 
persons and interests; the extensive history of U.S. combat operations 
against ISIL dating back to the time the group first affiliated with 
al-Qaeda in 2004 and was known as al-Qaeda in Iraq; and ISIL's 
position--supported by some individual members and factions of al-
Qaeda-aligned groups--that it is the true inheritor of Usama bin 
Laden's legacy, the administration has concluded that the President may 
rely on the 2001 AUMF as statutory authority for the use of force 
against ISIL, notwithstanding the public split between al-Qaeda's 
senior leadership and ISIL. A contrary interpretation of the statute 
would allow al-Qaeda and its cobelligerents, rather than the President 
and the Congress, to control the scope of the AUMF by splintering into 
rival factions while still continuing to prosecute the same conflict 
against the United States.

    Question. Does the administration currently have statutory or 
article II authority to defend U.S.- or coalition-trained forces in 
Iraq and Syria if those forces come under direct threat from ISIS, al-
Nusra, Assad regime forces, Hezbollah, or any other armed groups?

    Answer. The administration's position is that the 2001 AUMF would 
provide authority to conduct military operations in defense of U.S.- or 
coalition-trained forces against ISIL, the Nusrah Front, and other 
groups who are either part of or associated forces of al-Qaeda, in the 
same manner as it does for ongoing U.S. operations against those 
groups. The administration also believes that the 2002 Iraq AUMF would 
provide legal authority for military operations in some circumstances 
against ISIL in defense of U.S.- or coalition-trained forces in Syria.
    The question whether the 2001 AUMF, the 2002 AUMF, or the 
President's article II authority would provide legal authority to 
defend those forces against Assad regime forces or other armed groups 
would be more difficult.
    The 2001 AUMF authorizes the President to use ``all necessary and 
appropriate force against those nations, organizations, or persons he 
determines planned, authorized, committed, or aided the terrorist 
attacks that occurred on September 11, 2001, or harbored such 
organizations or persons, in order to prevent any future acts of 
international terrorism against the United States by such nations, 
organizations or persons.'' To be an ``associated force'' of al-Qaeda a 
group must be both (1) an organized, armed group that has entered the 
fight alongside al-Qaeda, and (2) a cobelligerent with al-Qaeda in 
hostilities against the United States or its coalition partners. The 
determination that a particular group is an associated force is made at 
the most senior levels of the U.S. Government, following reviews by 
senior government lawyers and informed by departments and agencies with 
relevant expertise and institutional roles, including all-source 
intelligence from the U.S. intelligence community.
    The 2002 AUMF authorizes the President to ``use the Armed Force of 
the United States as he determines to be necessary and appropriate in 
order to--(1) defend the national security of the United States against 
the continuing threat posed by Iraq; and (2) enforce all relevant 
United Nations Security Council resolutions regarding Iraq.'' Although 
the threat posed by Saddam Hussein's regime in Iraq was the focus of 
the 2002 AUMF, the statute, in accordance with its express goals, has 
always been understood to authorize the use of force for additional 
purposes. Those purposes include helping to establish a stable, 
democratic Iraq to succeed Saddam Hussein's regime and addressing 
terrorist threats emanating from Iraq. At a minimum, to the extent that 
military operations against ISIL in Syria are necessary in order to 
achieve these purposes, they are authorized by the 2002 AUMF.
    The President has authority under the Constitution to use force not 
amounting to ``war'' in the constitutional sense, where he reasonably 
determines that such force serves a sufficiently important national 
interest, at least insofar as the Congress has not specifically 
restricted it by statute. Whether the use of military force constitutes 
a ``war'' within the meaning of the Declaration of War Clause would, as 
described in previous opinions from the Justice Department's Office of 
Legal Counsel, involve the need for a fact-specific assessment of the 
anticipated nature, scope, and duration of the planned military 
operations and of the exposure of U.S. military personnel to 
significant risk over a substantial period.
    As a policy matter, the nature and extent of the support that the 
United States is prepared to provide to U.S.-trained Syrian forces is 
critically important and under active consideration, but as of this 
point has not been decided. If confirmed as Legal Adviser, I would look 
forward to working closely with this committee to explain the legal 
issues related to any decision that is made.

    Question. With U.S. forces on the ground in Iraq and conducting 
activities in both Iraq and Syria, what authority to protect and defend 
those forces, if any, is currently available under the 2001 or 2002 
AUMFs, and is there something additional you gain under the 2002 AUMF 
but not the 2001 AUMF?

    Answer. The administration's position is that the 2001 AUMF and, at 
least in some circumstances, the 2002 AUMF provide legal authority for 
the ongoing U.S. military operations in Iraq and Syria, including the 
authority to use military force in defense of U.S. forces.
    The 2001 AUMF authorizes the President to use ``all necessary and 
appropriate force against those nations, organizations, or persons'' he 
determines were responsible for the 9/11 attacks, and it is not limited 
to a specific country or geographic region. This authorization clearly 
covers Usama bin Laden and al-Qaeda, and Congress and the federal 
courts have confirmed the Executive branch's view that the AUMF also 
authorizes the use of force against associated forces of al-Qaeda, each 
of which must be both (1) an organized, armed group that has entered 
the fight alongside al-Qaeda, and (2) a cobelligerent with al-Qaeda in 
hostilities against the United States or its coalition partners.
    The 2001 AUMF authorized the use of force against ISIL beginning in 
at least 2004, when ISIL, then known as al-Qaeda in Iraq, pledged its 
allegiance to Bin Laden. Bin Laden then publicly endorsed the group as 
al-Qaeda's official affiliate in Iraq. After its formal affiliation 
with al-Qaeda, the group conducted numerous terrorist attacks against 
the United States and its coalition partners, and in response, the 
United States engaged in extensive combat operations against it.
    The 2002 Iraq AUMF provides an alternative source of legal 
authority for U.S. military operations against ISIL in Iraq and, at 
least in some circumstances, in Syria. Among other things, the 2002 
AUMF authorizes the use of force to ``defend the national security of 
the United States against the continuing threat posed by Iraq,'' 
including in defense of U.S. forces.
    The President has made clear that he would welcome bipartisan 
congressional action on a new, limited authorization for the use of 
military force that would specifically address the threat posed by 
ISIL. The President's AUMF proposal, among other things, would repeal 
the 2002 AUMF because the President believes the authority he would 
have under his proposal and the 2001 AUMF would be sufficient to 
conduct the operations that are ongoing in Iraq and Syria, including 
any operations to protect and defend the U.S. Forces who are part of 
those operations.

    Question. The administration believes it has authority under the 
2001 AUMF to use ``all necessary and appropriate force'' against ISIS. 
Does the administration have article II authority, on its own, to 
conduct the military activities we are currently engaged in against 
ISIS, or is congressional authorization necessary?

    Answer. The administration has concluded that the 2001 AUMF 
provides legal authority to use military force against ISIL in Iraq and 
Syria. The administration has also concluded that the 2002 Iraq AUMF 
provides legal authority for military operations against ISIL in Iraq 
and, in at least some circumstances, against ISIL in Syria. The 
military activities against ISIL in which the United States is 
currently engaged in Iraq and Syria are being conducted pursuant to 
those statutory authorities. Because of its conclusion that the 2001 
and 2002 AUMFs provide the necessary legal authority for the President, 
the administration has not developed a legal position on the question 
posed; namely, whether the President could rely on article II authority 
alone to continue to conduct the ongoing military activities we are 
currently engaged in against ISIL.
    The Constitution recognizes important roles for both the President 
and the Congress in relation to the use of military force by the United 
States. As the administration has previously indicated to this 
committee, the President has authority under the Constitution to use 
force not amounting to ``war'' in the constitutional sense where he 
reasonably determines that such force serves a sufficiently important 
national interest, at least insofar as the Congress has not 
specifically restricted it by statute. Any analysis of the President's 
constitutional authorities to conduct these same operations in the 
absence of the AUMFs would therefore require a fact-specific assessment 
of the national interests served by these operations and their 
anticipated nature, scope, and duration, among other factors.
    The administration has been clear in describing the critical 
national interests that are served by our ongoing efforts to degrade 
and ultimately defeat ISIL in Iraq and Syria. At the same time, this 
and previous administrations have recognized the congressional 
interest, including as reflected in the War Powers Resolution, in 
providing express congressional authorization for the use of force by 
the U.S. military in major, prolonged conflicts such as the wars in 
Vietnam and Korea.
    Regardless, the President has made clear that he believes that it 
is important that decisions to send members of our military into harm's 
way enjoy the support of Congress and the American people. This is the 
reason that the President has submitted the proposed ISIL AUMF to the 
Congress. I share that view, and, if confirmed, I would use my voice 
within the administration to support robust consultation with Congress 
on such matters, and to ensure that deliberations and consultations 
with Congress are fully informed by the important constitutional 
responsibilities of both branches of government in this area.

                               __________
                      brian egan's response to a 
                      question from senator cardin
    Question. Given the foreign policy objectives of the section 1504 
rule, please discuss how you intend to engage with the SEC to ensure 
that they issue a strong rule that serves U.S. foreign policy goals.

    Answer. Section 1504 of the Dodd-Frank Wall Street Reform and 
Consumer Protection Act requires reporting issuers engaged in the 
commercial development of oil, natural gas, or minerals to disclose in 
an annual report certain payments to the United States or foreign 
governments for the commercial development of oil, natural gas, or 
minerals. Section 1504 advances U.S. foreign policy interests by 
ensuring transparency and reducing corruption in the extractives 
sector, supporting international initiatives related to extractive 
industry transparency, and more broadly, promoting energy security and 
supporting global economic development.
    If confirmed as Legal Adviser, I will work with the State 
Department's policy bureaus to ensure that the SEC is appropriately 
aware of these foreign policy interests so that they may be given due 
regard in the rulemaking process.
                               __________
                       brian egan's responses to 
                    questions from senator barrasso
    Question #1. Do you believe a resolution adopted by the U.N. 
Security Council can preempt U.S. law?

    Answer. No. U.N. member states are required under international law 
to accept and carry out decisions of the Security Council in accordance 
with the Charter of the United Nations. This does not, however, preempt 
the obligation to comply with applicable provisions of U.S. domestic 
law. When deciding whether to support or oppose proposed Security 
Council resolutions, the Department of State, working with other 
departments and agencies, carefully considers whether actions that 
would be required under the resolutions would be consistent with U.S. 
law. The United States has the right, under Article 27 of the U.N. 
Charter, to veto resolutions that would impose requirements that would 
be inconsistent with U.S. domestic law and thereby prevent their 
adoption.

    Question #2. Could the executive branch use a U.N. Security Council 
resolution to justify action that U.S. law would otherwise not allow?

    Answer. No. The executive branch cannot take actions that it is 
prohibited from taking under U.S. law. Thus, the fact that a U.N. 
Security Council resolution authorizes a particular action will not 
enable the executive branch to carry it out if the action is 
impermissible under U.S. law.

    Question #3. If the U.N. Security Council adopted a resolution 
requiring countries to lift sanctions on Iran, would the U.S. be 
obligated to comply?

    Answer. In the case of Iran, the Security Council adopted a series 
of resolutions beginning in 2006 requiring U.N. member states to impose 
certain sanctions on Iran. When the Security Council makes a decision 
requiring U.N. member states to impose sanctions, U.N. member states 
are required under international law to accept and carry out that 
decision in accordance with the Charter of the United Nations. A 
Security Council decision to lift these requirements would relieve U.N. 
member states of their international legal obligation to maintain the 
sanctions on Iran that were the subject of the Security Council 
resolutions, but would not prevent the United States or other U.N. 
member states from continuing to impose sanctions on a national basis 
under their domestic law. In any event, as explained in response to 
Question #1, the United States has the right, under Article 27 of the 
U.N. Charter, to veto resolutions that would impose requirements that 
would be inconsistent with U.S. domestic law and thereby prevent their 
adoption.

    Question #4. What types of agreements are constitutionally required 
to take the form of a treaty and must be submitted to the Senate for 
advice and consent to ratification?

    Answer. The Constitution's text does not specify particular types 
of agreements that must take the form of a treaty. As a matter of 
practice, the United States has entered into a variety of agreements 
approved by statute rather than through the procedures specified in the 
Constitution's Treaty Clause. These include the United Nations 
Headquarters Agreement; agreements establishing the World Bank, the 
International Monetary Fund, and other international financial 
institutions; the agreement establishing the International Labor 
Organization; the SALT I Interim Agreement; and trade agreements 
including NAFTA and the agreement establishing the World Trade 
Organization. This practice suggests that the executive branch, Senate, 
and House of Representatives together have understood themselves to 
have significant latitude to use regular legislative procedures as an 
alternative to the procedures specified in the Treaty Clause for the 
approval of international agreements when collectively they deem it 
appropriate to do so.
    If confirmed, I would welcome the opportunity to work with this 
committee on issues related to the approval of treaties and other forms 
of international agreements. Administrations of both political parties 
have a history of working with the Congress to identify international 
agreements that would be subject to the Constitution's Treaty Clause 
and agreements that could be concluded with other forms of 
congressional approval or as a sole executive agreement.

    Questions #5 & #6. Is the President only able to enter sole 
Executive agreements concerning matters under his exclusive 
constitutional authority, or may these agreements also concern matters 
over which authority is shared with Congress?
    What domestic or international legal effect do ``sole executive 
agreements'' have when there is a conflicting federal statute?

    Answer. In analyzing the scope of the President's authority with 
respect to international agreements, the Supreme Court has referred to 
the framework outlined in Justice Jackson's concurrence in Youngstown 
Sheet and Tube v. Sawyer, 343 U.S. 579 (1952). That framework indicates 
that the President's authority is at its maximum when he acts pursuant 
to an express or implied authorization from Congress; that when he acts 
in the absence of either a congressional grant or denial of authority, 
he can only rely upon his own independent powers; and that when the 
President takes measures incompatible with the expressed or implied 
will of Congress, his power is at its lowest ebb, for then he can rely 
only upon his own constitutional powers minus any constitutional powers 
of Congress over the matter. Id. at 635-638.
    Consistent with this framework, the validity of any particular 
Executive agreement as a matter of U.S. law would depend on factors 
including the particular matter addressed by the agreement, the extent 
of the President's independent constitutional authority with regard to 
that matter, and whether Congress had legislated with respect to the 
matter. For example, where an Executive agreement conflicts with a 
federal statute, Justice Jackson's concurrence indicates that ``Courts 
can sustain exclusive Presidential control in such a case only by 
disabling the Congress from acting upon the subject.'' It further 
observes that ``Presidential claim to a power at once so conclusive and 
preclusive must be scrutinized with caution.''
    The fact that an international agreement may conflict with a 
federal statute does not affect the status of the agreement as a matter 
of international law. In Medellin v. Texas, the Supreme Court observed 
that, although the President lacked the authority as a matter of U.S. 
law to give effect to an obligation under an international agreement at 
issue in the case, ``no one disputes that it constitutes an 
international law obligation on the part of the United States.'' 552 
U.S. 491, 536 (2008).

    Question #7. Under existing law, the United States is required to 
suspend direct foreign assistance to the government of any country 
whose duly elected head of government is deposed by military coup 
d'etat or decree or a coup d'etat or decree in which the military plays 
a decisive role. How is a coup d'etat defined under existing U.S. law?

    Answer. The annual Department of State, Foreign Operations, and 
Related Programs Appropriations Acts provides that certain funds in the 
Act may not ``be obligated or expended to finance directly any 
assistance to the government of any country whose duly elected head of 
government is deposed by military coup d'etat or decree or, after the 
date of enactment of this Act, a coup d'etat or decree in which the 
military plays a decisive role.'' This ``military coup restriction'' 
contains three elements that must be met in order to trigger the 
restriction: (1) whether the head of government was duly elected; (2) 
whether the head of government was removed from office, and (3) whether 
the removal was effectuated by the military or whether the military 
played a decisive role in the removal. Whether the military coup 
restriction could be triggered in connection with a particular change 
in government requires a detailed factual inquiry into all of the 
relevant circumstances.

    Question #8. As noted, appropriations law requires the termination 
of certain foreign assistance if an elected head of government is 
deposed by a coup. At the time, an administration official was asked if 
it is ``still U.S. policy that we are not determining that a coup was 
carried out in July in Egypt.'' He replied: ``Nothing has changed in 
terms of approaching what you called the coup restriction; didn't make 
a determination, haven't made a determination, don't think we need to 
make a determination, are acting consistent with the provisions of the 
law and we'll continue to do so.''

  <diamond> In your opinion, did a coup occur in Egypt when Egyptian 
        President Morsi was deposed from power?

    Answer. The military coup restriction in the annual Department of 
State, Foreign Operations, and Related Programs Appropriations Act does 
not require a determination to be made with respect to a particular 
change in government, so long as any assistance provided to the 
relevant government could be provided even if the restriction were 
triggered. Accordingly, the administration took action to restrict 
certain assistance to Egypt consistent with the military coup 
restriction until new legislation was enacted with regard to assistance 
for the Government of Egypt.
    The administration decided it was not in U.S. foreign policy or 
national security interests to characterize the events in Egypt as 
either a military coup or not a military coup. Such a characterization 
would implicate a highly polarized debate in Egypt. The administration 
concluded that inserting the United States into that debate would 
undermine U.S. interests in a peaceful resolution to the crisis, risk 
alienating roughly half of the population in Egypt, and potentially put 
U.S. facilities and personnel in the region at increased risk.

    Question #9. After a head of government is deposed from power, how 
long does the State Department have to determine if a coup took place?

    Answer. The military coup restriction in the annual Department of 
State, Foreign Operations, and Related Programs Appropriations Act does 
not require a determination to be made with respect to a particular 
change in government, so long as any assistance provided to the 
relevant government could be provided even if the restriction were 
triggered.
    As explained in response to Question #7, three elements must be met 
in order to trigger the restriction: (1) whether the head of government 
was duly elected; (2) whether the head of government was removed from 
office, and (3) whether the removal was effectuated by the military or 
whether the military played a decisive role in the removal. Whether 
this restriction could be triggered in connection with a particular 
change in government requires a detailed factual inquiry into all of 
the relevant circumstances, and in some instances the facts on the 
ground may not be clear for a period of time.

    Questions #10 & #11. How is it consistent with the law to never 
make a determination whether a coup actually happened when a leader is 
deposed from power?
    What other statutory regimes is this method of legal analysis 
applied to?

    Answer. The military coup restriction in the annual Department of 
State, Foreign Operations, and Related Programs Appropriations Acts 
provides that certain funds in the Act may not ``be obligated or 
expended to finance directly any assistance to the government of any 
country whose duly elected head of government is deposed by military 
coup d'etat or decree or, after the date of enactment of this Act, a 
coup d'etat or decree in which the military plays a decisive role.'' If 
the standard in the legislation is met, assistance must be restricted 
consistent with the military coup restriction. On the other hand, so 
long as any assistance provided to the relevant government could be 
provided even if the military coup restriction were triggered, it is 
consistent with the law not to make a determination. Many countries 
receive no assistance from the U.S. Government; others receive 
assistance that would not be impacted by the military coup restriction 
(for example, assistance only for nongovernmental activities). 
Therefore, the applicability of this provision varies with respect to 
the nature of our assistance. The Department of State's efforts to 
ensure compliance with the military coup restriction are consistent 
with its broader efforts to ensure compliance with all applicable 
funding restrictions.

    Question #12. There has been a lot of discussion about the type and 
form of a comprehensive agreement on Iran's nuclear program. The 
administration claims that a final deal on Iran's nuclear program will 
be an Executive agreement instead of a treaty requiring the advice and 
consent of the Senate for ratification. What is the legal basis for 
this position?

    Answer. The administration has made clear that the P5+1 discussions 
with Iran are directed toward the conclusion of a nonbinding 
arrangement. Nonbinding arrangements are not Executive agreements in 
that they do not create legal obligations under U.S. or international 
law. As White House Chief of Staff Denis McDonough indicated in a March 
14, 2015, letter to Senator Corker, such nonbinding arrangements have 
been utilized by Presidents of both parties throughout our history to 
address a range of diplomatic and national security matters and do not 
require congressional approval.

    Question #13. What conditions or provisions in a new climate change 
agreement would not require the advice and consent to ratification by 
the Senate?

    Answer. It is my understanding that the international discussions 
on a new climate change agreement are continuing and have not resulted 
in any final decisions on any conditions or provisions of the new 
agreement. Accordingly, I am not in a position to speculate as to 
whether any of the terms of the final agreement will require Senate 
advice and consent.
    The administration will continue to consult with the committee 
regarding the negotiations. During his confirmation hearing, Secretary 
Kerry assured this committee that any international agreement brought 
into force for the United States will be done consistent with the U.S. 
Constitution.

    Question #14. What form of agreement is the United States 
advocating for during the international negotiations? Has the 
administration been pushing for the agreement to be legally binding 
during the negotiations?

    Answer. A 2011 decision of the Parties to the United Nations 
Framework Convention on Climate Change, adopted in Durban, South 
Africa, launched a process to develop a ``protocol, another legal 
instrument, or an agreed outcome with legal force under the Convention 
applicable to all Parties. . . . ''
    The Durban decision makes clear that the purpose of a future Paris 
agreement is to further the objective of the Convention (i.e., to avoid 
dangerous anthropogenic interference with the climate), yet leaves the 
Parties with substantial flexibility regarding its form and the legal 
nature of its provisions.
    It is my understanding that at this stage the international 
discussions are more focused on the substance of the agreement than on 
issues related to its form, such as whether it should be a protocol or 
whether particular provisions should be legally binding. The 
administration has indicated that the United States seeks an agreement 
that is ambitious in light of the climate challenge; that reflects 
nationally determined mitigation efforts in line with national 
circumstances and capabilities; that provides for accountability with 
respect to such efforts; that takes account of evolving emissions and 
economic trends; and that promotes adaptation by Parties to climate 
impacts.

    Question #15.Will the final agreement be legally binding on the 
United States and other countries, including funding commitments for 
any provision contained within the agreement?

    Answer. Please see response to Question #14.

    Question #16. Can the administration enter into a politically 
binding international agreement without congressional approval?

    Answer. I understand the term ``politically binding'' to refer to 
arrangements that do not give rise to legal obligations under U.S. or 
international law. As White House Chief of Staff Denis McDonough 
indicated in a March 14, 2015, letter to Senator Corker in response to 
questions regarding negotiations with Iran, such nonbinding 
arrangements have been utilized by Presidents of both parties 
throughout our history to address a range of diplomatic and national 
security matters and do not require congressional approval.

    Question #17. What state, local governing entity, or community 
would not be subject to a politically binding agreement?

    Answer. I understand the term ``politically binding'' to refer to 
arrangements that do not give rise to legal obligations under U.S. or 
international law. Accordingly, any such nonbinding arrangements would 
create no legal obligations for any state, local governing entity, or 
community.

    Question #18. Has the Palestinian accession and acceptance of the 
International Criminal Court jurisdiction triggered this prohibition on 
the Economic Support Fund assistance?

    Answer. The administration continually reviews its assistance to 
ensure compliance with U.S. law, including those provisions pertaining 
to assistance to the Palestinian Authority.
    At this stage, the administration does not believe that any of the 
legislative restrictions on Economic Support Fund (ESF) assistance to 
the Palestinian Authority have been triggered. At the same time, in 
light of the latest developments, the administration has indicated that 
it is reviewing our assistance for the Palestinian Authority to ensure 
that it supports our policy.

    Question #19. Has the International Criminal Court Prosecutor's 
opening of a preliminary examination of the situation in the 
Palestinian territories, enabled by the Palestinian ad hoc declaration, 
triggered the prohibition on Economic Support Fund assistance? If the 
prohibition has not been triggered, what steps would the Palestinians 
or the International Criminal Court have to take for the prohibition to 
take effect?

    Answer. The administration strongly disagreed with the decision by 
the ICC Prosecutor to open a preliminary examination of the situation 
in ``Palestine'' and has indicated that it will continue to oppose 
actions against Israel at the ICC as counterproductive to the cause of 
peace.
    At this stage, the administration does not believe that legislative 
restrictions on ESF assistance to the Palestinian Authority have been 
triggered. At the same time, in light of the latest developments, the 
administration has indicated that it is reviewing our assistance for 
the Palestinian Authority to ensure that it supports our policy.
    It is difficult to predict how events may develop in the future and 
an assessment of whether particular restrictions have been triggered 
would need to take into account the specific circumstances as they may 
evolve. If confirmed, I would expect to work with Secretary Kerry and 
other officials at the State Department to monitor the situation 
closely.

    Question #20. What are the defects in Palestinian claims to 
statehood or sovereignty? What steps is the United States taking or 
planning to take to challenge Palestinian accession to the Rome Statute 
and acceptance of ICC jurisdiction?

    Answer. The view of the United States is that the Palestinians have 
not yet established a state and are not eligible to become a party to 
the Rome Statute. We remain committed to achieving a negotiated two-
state solution that would result in two states living side by side in 
peace and security. We continue to believe that the conflict between 
the Israelis and the Palestinians ultimately should be resolved by the 
parties reaching an agreement on final status issues.
    With respect to the ICC, the United States has made clear its 
opposition to Palestinian action in seeking to join the Rome Statute of 
the International Criminal Court. This step is counterproductive, will 
damage the atmosphere with the very people with whom Palestinians 
ultimately need to make peace, and will do nothing to further the 
aspirations of the Palestinian people for a sovereign and independent 
state. Our actions have included formal submission by the United States 
of a diplomatic note to the treaty depositary for the Rome Statute 
setting forth our view that the Palestinians are not eligible to become 
a party to the treaty, and of a notification to the Registry of the 
Court itself to make clear that the Palestinians are ineligible to 
accept the jurisdiction of the Court under Article 12(3) of the Rome 
Statute. The United States issued a public statement strongly 
disagreeing with the decision by the ICC Prosecutor to open a 
preliminary examination of the situation in ``Palestine'' and 
indicating we will continue to oppose actions against Israel at the ICC 
as counterproductive to the cause of peace. The United States continues 
to make our opposition known to the Palestinians and the international 
community.

    Question #21. Do you believe Russia is in ``material breach'' of 
its obligations under the Intermediate Range Nuclear Forces Treaty? 
What are the differences between an activity described as a ``material 
breach'' versus a violation?

    Answer. The international legal doctrine of material breach allows 
one party to terminate a treaty or suspend its operation in whole or in 
part based on inter alia another party's violation of a provision 
essential to the accomplishment of the object and purpose of the 
treaty.
    The administration has made clear its extremely serious concerns 
about Russia's violation of the Intermediate-Range Nuclear Forces (INF) 
Treaty's ban on the possession, production, and flight-testing of 
intermediate range missiles. However, the administration does not 
believe it is in the interest of the United States to suspend the INF 
Treaty at this time. As a result, the administration has not invoked 
the doctrine of material breach. The administration's current efforts 
are focused on convincing Russia to return to compliance and preserving 
the viability of the 
INF Treaty, which the administration believes continues to serve U.S. 
and allied interests.

                               __________



                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Gregory T. Delawie, of Virginia, to be Ambassador to the 
        Republic of Kosovo
Ian C. Kelly, of Illinois, to be Ambassador to Georgia
Nancy Bikoff Pettit, to be Ambassador to the Republic of Latvia
Julieta Valls Noyes, of Virginia, to be Ambassador to the 
        Republic of Croatia
Azita Raji, of California, to be Ambassador to the Kingdom of 
        Sweden
                              ----------                              

    The committee met, pursuant to notice, at 2:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson, Gardner, Shaheen, Kaine, and 
Murphy.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. This hearing is called to order.
    I would like to first recognize--the Ambassador from 
Georgia who is here in the audience today. Welcome.
    I am pleased to be holding this hearing to confirm some 
very qualified individuals who are willing to serve this Nation 
in the capacity of Ambassadors to Kosovo, to Georgia, to 
Latvia, to Sweden, and to Croatia.
    I have been in the Senate now for 4 years, on Senator 
Foreign Relations for 2\1/2\, and I just have to say that I 
have always been very impressed with the quality of career 
Foreign Service individuals and people who serve this Nation in 
the capacity of Ambassadors. From my standpoint, it is such an 
important position, in terms of being able to convey our values 
around the world. I hope you all take that responsibility--I am 
sure you will--very seriously, conveying that America, although 
we are not perfect, has been a phenomenal force for good in the 
world. I certainly always ask our Ambassadors to think of how 
you can utilize this committee, whether it is holding hearings 
or potentially passing resolutions to reinforce the work you 
are doing in those countries that you are representing America 
for. I also point out to our Ambassadors that you are 
representing those countries back to America. It is really a 
two-way street. I certainly appreciate your willingness to 
serve.
    I know Senator Shaheen has a tight schedule, so I will not 
say anything further until I introduce the nominees.
    Senator Shaheen.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman.
    Welcome. I want to congratulate each of you on your 
nominations, and express my appreciation to you for your 
willingness to serve this country and take on these new 
responsibilities at such a critical time.
    I also want to welcome all of your families who are here 
today. And I hope that you will introduce them as you are 
starting your statements.
    You have all been named for ambassadorial posts in 
important countries in strategic areas of Europe. We are 
considering your nominations and our relations with these 
countries against the backdrop of an aggressive Russia in 
Europe's east and growing instability in its south, in the 
Middle East and in North Africa. I look forward to discussing a 
wide range of issues regarding the countries that you are going 
to serve, and other challenges facing Europe today, and hope 
that you will be confirmed to these very important posts.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Kaine, would you like to make a 
comment, or----
    Senator Kaine. No, thank you.
    Senator Johnson. Okay.
    With that, I will just introduce you one at a time before 
your testimony. And we will start from my right, going left, 
with Mr. Delawie. Mr. Greg Delawie is currently the Deputy 
Assistant Secretary within the Bureau of Arms Control, 
Verification, and Compliance at the State Department. He is a 
career member of the Senior Foreign Service, and he is the 
nominee for Ambassador to Kosovo.
    Mr. Delawie.

          STATEMENT OF GREGORY T. DELAWIE, NOMINATED 
           TO BE AMBASSADOR TO THE REPUBLIC OF KOSOVO

    Mr. Delawie. Thank you very much, Chairman Johnson, Ranking 
Member Shaheen, Senator Kaine.
    It is an honor and a privilege to appear before you today 
as the President's nominee to be Ambassador to the Republic of 
Kosovo. I deeply appreciate the confidence President Obama and 
Secretary Kerry have placed in me.
    I am accompanied today by my wife, Vonda Delawie, a retired 
Foreign Service officer, and, further back, my daughter, 
Torrence, and my son, Fred, all of whom have shared with me the 
joys and challenges of bouncing from one country to the next. 
For all of us, it has been an honor to work for the American 
people and to represent them to the rest of the world.
    The United States relationship with Europe's youngest 
democracy is based on a shared vision of Kosovo's legitimate 
place in a Europe whole, free, and at peace. Indeed, Kosovo has 
made remarkable progress since declaring independence. It has 
drafted and implemented modern laws, economic growth has been 
steady, and security throughout the country has improved, 
creating an atmosphere that allows the EU-led dialogue between 
Kosovo and Serbia to flourish.
    Despite these significant achievements, Kosovo continues to 
face many obstacles. If confirmed as Ambassador, I will lead a 
whole-of-government U.S. effort to help it surmount the 
remaining challenges to its becoming a fully democratic, 
multiethnic, sovereign nation.
    If confirmed, I will focus on three central and highly 
interdependent areas: strengthening the rule of law, increasing 
regional security, and promoting economic reforms. I would like 
to share what I see as our priorities, beginning with the rule 
of law.
    First, corruption hampers Kosovo's democratic and economic 
development. The Government of Kosovo must develop a 
coordinated approach to addressing it. If confirmed, I will 
intensify interagency support for Kosovo's anticorruption 
efforts and help restore citizens' faith in their government.
    Next, Kosovo must respond appropriately to allegations of 
serious crimes committed between 1998 and 2000. Kosovo must 
uphold its commitments by adopting, soon, the necessary legal 
measures to set up a special court to handle any potential 
indictments stemming from the ongoing investigation into the 
alleged crimes committed during this period. I will, if 
confirmed, encourage the Government of Kosovo to diligently 
support the court's judicial proceedings.
    Third, Kosovo confronts a significant human trafficking 
problem, despite having good antitrafficking and victim-
protection laws. If confirmed, I will work with Kosovo to 
implement these laws and intensify the fight against this 
modern form of slavery.
    In terms of regional security, normalization of the Kosovo-
Serbia relationship is a fundamental requirement for lasting 
stability in the Balkans. We continue to fully support the EU-
led dialogue between Kosovo and Serbia, and full implementation 
of all elements of the April 2013 Agreement on Normalization. 
If confirmed, I will champion minority rights and promote 
integration throughout Kosovo. We must also find durable 
solutions for thousands of displaced persons.
    I applaud Kosovo for its robust efforts to confront the 
threat posed by foreign terrorist fighters heading to Syria and 
Iraq, and Kosovo's participation in the counter-ISIL coalition. 
With U.S. assistance, the Government of Kosovo is improving its 
capacity to prosecute terrorism cases and developing a national 
plan for countering violent extremism. If confirmed, I will 
continue backing this important work.
    Kosovo is in the process of transitioning from the Kosovo 
Security Force to the Kosovo Armed Forces. If confirmed, I will 
ensure that the United States guides this transition in a way 
that increases regional stability, strengthens democratic 
institutions in Kosovo, and positions it to qualify for 
eventual NATO membership.
    Mr. Chairman, if confirmed, encouraging Kosovo's economic 
reform and development will be one of my highest priorities. 
This will be key to reducing high rates of poverty and 
unemployment, to promoting regional ties, and to expanding 
opportunities for U.S. firms. The lack of dependable electrical 
power is widely considered Kosovo's greatest obstacle to 
sustained economic growth. If confirmed, I will work with 
Kosovo to implement its energy strategy, including promoting 
significant growth in renewable energy.
    This is a daunting agenda, but I know from my 30-plus years 
in the Foreign Service that I will not have to pursue it alone. 
I will be able to draw on the experience of the talented team 
of Americans and local staff in Embassy Pristina, as well as on 
partners from multiple agencies in Washington, and on so many 
others who want to see Kosovo succeed. I look forward to 
remaining in close consultation with the legislative branch and 
this committee to advance U.S. interests in the Balkans.
    Mr. Chairman, if confirmed, I will do my utmost to promote 
a democratic Kosovo whose citizens trust its institutions, 
which is at peace with its neighbors, and which is making a 
sustainable contribution to the global economy.
    Thank you very much for your attention. I hope you will 
place your trust in me and confirm me as Ambassador to Kosovo. 
I am happy to take any questions.
    [The prepared statement of Mr. Delawie follows:]

                 Prepared Statement of Greg T. Delawie

    Chairman Johnson, Ranking Member Shaheen, and members of the 
committee, it is an honor and a privilege to appear before you today as 
the President's nominee to be Ambassador to the Republic of Kosovo. I 
deeply appreciate the confidence that President Obama and Secretary 
Kerry have placed in me. I hope the committee and the Senate will share 
that confidence and confirm me. I am accompanied today by my wife, 
Vonda Delawie, a retired Foreign Service officer, my daughter, 
Torrence, and my son, Fred, all of whom have shared with me the joys 
and challenges of a lifetime bouncing from one country to the next. 
Wherever we have served, we have always remembered what an honor it is 
to work for the American people and to represent them to the rest of 
the world.
    Our relationship with Europe's youngest democracy is based on a 
shared vision of Kosovo's legitimate place in a Europe whole, free, and 
at peace. The government and people of Kosovo deeply respect the United 
States, and are grateful for our role in ending the ethnic cleansing of 
the late 1990s. Over the past 16 years, with our strong support, Kosovo 
has made remarkable progress. Concrete examples of that progress 
include Kosovo's 2008 Declaration of Independence and the end of 
international supervision in 2012.
    A democratic, fully sovereign, and multiethnic Kosovo must become 
an integral part of the international community. The United States has 
worked and continues to work closely with Kosovo toward that end. 
Although Kosovo faces enormous challenges in the interconnected areas 
of rule of law, regional security, and economic development, it has 
made progress. I would like to highlight some successes:

  <diamond> With U.S. and international support, Kosovo has drafted and 
        implemented modern laws to bring Kosovo's criminal legislation 
        in line with international standards, to establish the rules of 
        criminal procedure mandatory for court proceedings, and to 
        reform the judicial system. The European Rule of Law Mission, 
        EULEX, is building capacity in the judicial system, with the 
        vital help of U.S. police, prosecutors, and judges.
  <diamond> The NATO Kosovo Force, or KFOR, makes a multinational 
        contribution to regional security. KFOR is uniquely trusted by 
        Albanians and Serbs alike and its presence creates an 
        atmosphere that allows the EU-led Dialogue between Kosovo and 
        Serbia to flourish. The United States provides some 700 troops 
        to KFOR.
  <diamond> With U.S. guidance, Kosovo has moved up 42 places on the 
        World Bank's ``Ease of Doing Business'' ranking, from 117th in 
        2011 to 75th in 2014. We have helped Kosovo privatize its 
        national airport management and energy distribution companies. 
        U.S. technical assistance helped Kosovo conclude a landmark 
        $460 million public-private partnership deal for the Brezovica 
        ski resort complex.Our USAID economic programs in the last 5 
        years alone have generated 17,500 new jobs, $330 million in 
        increased sales, and $37.6 million in new revenues across 
        multiple sectors.

    As impressive as these recent achievements are, Kosovo continues to 
face many obstacles. If confirmed as Ambassador, I will devote my time 
and energy to leading a whole-of-government U.S. effort to help Kosovo 
surmount these obstacles. We will focus on measurable improvement in 
three central and highly interdependent areas [the three ``R''s]: 
strengthening the rule of law, increasing regional security, and 
promoting economic reforms to reduce poverty, unemployment, and energy 
insecurity. I'd like to share just a bit about what I see as our 
priorities, beginning with the rule of law.
Rule of law
    Corruption hampers Kosovo's democratic and economic development. It 
deters investment, spurs emigration, and weakens confidence in public 
institutions. This in turn can create fertile ground for the growth of 
violent extremism. The Government of Kosovo must develop a more 
coordinated approach to addressing corruption, engaging all government 
agencies in the effort. If confirmed, I will intensify interagency 
support for Kosovo's efforts to combat corruption and restore citizens' 
faith in their government.
    Kosovo must respond appropriately to allegations of serious crimes 
committed between 1998 and 2000. Under the auspices of the EU-
established Special Investigative Task Force (SITF), an American 
prosecutor found evidence that indictable offenses were committed by a 
small number of former Kosovo Liberation Army (KLA) senior leaders. 
Kosovo must resolve these serious allegations if it is to close this 
chapter of its history and move forward with democratic development and 
Euro-Atlantic integration. The government is currently adopting the 
necessary constitutional amendments, legislation, and agreements to 
establish a Special Court to adjudicate SITF cases in line with 
international standards. While I hope that these measures will soon be 
in place, I will, if confirmed, encourage the Government of Kosovo to 
maintain a high level of support and cooperation throughout the 
judicial proceedings.
    Kosovo confronts a significant human trafficking problem. It has 
antitrafficking and victim-protection laws, as well as a shelter for 
victims, but does not yet meet minimum standards for enforcement of 
antitrafficking laws or victim protection. To improve enforcement, the 
U.S. Embassy has provided antitrafficking training to Kosovo Government 
officials, and successfully encouraged the foreign ministry to include 
training on human trafficking as part of the standard preparation for 
all of Kosovo's diplomatic personnel. Kosovo's fight against 
trafficking is also supported more generally by U.S.-organized training 
for law enforcement, prosecutors, and judges in Kosovo. If confirmed, I 
will continue the Embassy's work with Kosovo to implement these laws 
and intensify the fight against this modern form of slavery.
Regional security
    Normalization of the Kosovo-Serbia relationship is a fundamental 
requirement for enduring regional security and is effectively a 
precondition for Kosovo to be able to thrive over the long term. We 
continue to support the EU-facilitated Kosovo-Serbia High-Level 
Dialogue and full implementation of all elements of the April 2013 
agreement on normalization, which have been a landmark joint 
achievement of U.S. and European Union diplomacy in the Balkans. This 
Dialogue success reflects great credit on the political leaders of 
Kosovo and Serbia alike for making tough compromises for the good of 
their two countries. Dismantling parallel structures and integrating 
the predominantly Kosovo Serb northern municipalities into Kosovo's 
legal and institutional framework are key to full normalization of 
relations. Kosovo has made significant progress: voters of all 
ethnicities participated in recent municipal and parliamentary 
elections; municipal governments in northern Kosovo are now elected and 
constituted under Kosovo law; the main Serb political group, Srpska 
List, is part of the governing coalition. Outside the Dialogue context, 
bilateral contacts increasingly take place at all levels, from 
interministerial dialogue to joint training for customs officers. Some 
aspects of normalization remain difficult to achieve, such as the 
planned creation of an Association of Serb Majority Municipalities.
    If confirmed, I will champion minority rights and promote 
integration throughout Kosovo, including more proportional minority 
representation in the national and municipal civil services. Kosovo 
must find durable solutions for the thousands of vulnerable persons 
displaced from Kosovo, many of whom now live in Serbia. U.S. programs 
assist some of those displaced in Serbia as well as returnees to 
Kosovo, but additional political and programmatic efforts are needed. 
Kosovo must also do more to protect the rights of Kosovo's other 
minorities, including the Roma, Ashkali, and Balkan Egyptian 
population, and promote their societal inclusion.
    I applaud Kosovo for its robust efforts to confront the threat 
posed by foreign terrorist fighters heading to Syria and Iraq, and its 
participation in the Counter-ISIL Coalition. Kosovo passed legislation 
making it illegal for Kosovo citizens to join foreign terrorist 
organizations. Since November 2013, Kosovo authorities have arrested 
over 80 suspects for participation in, or recruitment for, terrorist 
groups in Iraq and Syria. With U.S. assistance, the Government of 
Kosovo is improving its capacity to prosecute terrorism cases. The U.S. 
is also supporting Kosovo's effort to develop a ``whole of government'' 
approach to countering violent extremism. If confirmed, I will continue 
our backing for this important work.
    As recommended in its U.S.-facilitated Strategic Security Sector 
Review, Kosovo is in the process of transitioning from the Kosovo 
Security Force to the Kosovo Armed Forces, with the stated mission of 
protecting the nation's territorial integrity, providing military 
support to civil authorities in disaster situations, and participating 
in international peacekeeping operations. The KAF is expected to 
develop capabilities in line with EU and NATO standards. If confirmed, 
I will ensure that the United States continues to guide and support 
this transition in a manner that is consistent with increasing regional 
stability, strengthens democratic institutions in Kosovo, and positions 
Kosovo to qualify for eventual NATO membership.
Energy security and economic development
    Mr. Chairman, I can guarantee that one of my highest priorities, if 
confirmed, will be to continue to press for the reforms needed to 
develop Kosovo's economy. This is key to reducing high rates of poverty 
and unemployment, to promoting regional ties, and to expanding 
opportunities for U.S. exporters and investors. The government's reform 
agenda includes strengthening the legal environment necessary to 
attract and retain foreign investors, who are already drawn by Kosovo's 
relatively young population, low labor costs, and abundant natural 
resources. Anticorruption efforts are also vitally important.
    The lack of dependable electrical power is widely considered 
Kosovo's greatest obstacle to achieving sustained economic growth. The 
government has made it a priority to modernize and improve the energy 
sector through a comprehensive energy development and security plan. If 
confirmed, I will work with Kosovo to implement its energy strategy, 
help meet its commitment to join the EU's common energy market, and to 
have a substantial share of its energy come from renewable energy 
sources by 2020.
Conclusion
    This is a daunting agenda. But I know from my 30-plus years in the 
Foreign Service that I will not have to pursue it alone. I will be able 
to draw on the experience of the talented team of Americans and locally 
employed staff at Embassy Pristina, the experienced partners from 
multiple agencies in Washington, support from the legislative branch, 
and the contributions of private Americans and citizens of so many 
other nations who also want to see Kosovo succeed.
    Mr. Chairman, for the past seven decades, the United States has 
been committed to building a Europe whole, free, and at peace. The work 
is not complete, but we know that we can achieve success because we 
have already accomplished so much. The history of the last 25 years has 
demonstrated how important it is for the United States to be involved 
in the Balkans. If confirmed, I will do my utmost to promote our mutual 
goal: a democratic Kosovo whose citizens trust its institutions, which 
is at peace with its neighbors, and which is making a sustainable 
contribution to the global economy.
    Thank you very much for your attention. I hope you will place your 
trust in me and confirm me as Ambassador to the Republic of Kosovo. I 
am happy to take any questions.

    Senator Johnson. Thank you, Mr. Delawie.
    Our next nominee is Ambassador Ian Kelly. He is the nominee 
for the Ambassador to Georgia. Ambassador Ian Kelly is a career 
member of the Foreign Service and currently serves as the 
Department of State's Diplomat in Residence at the University 
of Illinois--Chicago. Prior to that, he served as U.S. 
Ambassador to the Organization for Security and Cooperation in 
Europe.
    Mr. Kelly.

           STATEMENT OF HON. IAN C. KELLY, NOMINATED 
                  TO BE AMBASSADOR TO GEORGIA

    Ambassador Kelly. Thank you, Mr. Chairman, Senator Shaheen, 
Senator Kaine. I am deeply honored to appear before you as 
President Obama's nominee to be Ambassador to Georgia. It is a 
particular privilege for me to have a second opportunity to be 
considered by this committee and serve the American people in 
this way.
    If confirmed, I pledge to devote all of my efforts to 
advancing U.S. interests and promoting the security of the 
American people.
    For all 30 years of my government service, my wife, 
Francesca, has been by my side, and I am pleased that she is 
behind me right now.
    Nearly 40 years ago, after spending several months studying 
in the U.S.S.R., I visited Tbilisi and was immediately struck 
by the vitality and independent spirit of the Georgian people. 
A few years later, the Georgian people were in the forefront of 
the movement to free the captive nations of the Soviet Union. 
We supported their desire for independence then, and we support 
it now.
    The United States stands firm in its commitment to 
Georgia's sovereignty, territorial integrity, and independence. 
We condemn the ongoing occupation of Georgia's Abkhazia and 
South Ossetia regions by Russian forces. Furthermore, Russia's 
so-called ``treaties'' with the de facto authorities in 
Abkhazia and South Ossetia have absolutely no legitimacy.
    In Georgia, an important principle is at stake: the right 
of all sovereign nations to choose their own alliances and 
associations. The United States and our allies support 
Georgia's Euro-Atlantic aspirations, including NATO membership 
and EU integration. No third party has the right to veto those 
aspirations.
    If confirmed, I look forward to working with the Georgian 
Government and my Embassy colleagues in realizing these 
aspirations. I will also urge all Georgians who believe in 
their country's Euro-Atlantic goals to unite in supporting them 
and move their country forward.
    On the road to Euro-Atlantic integration, Georgia has made 
substantial progress toward becoming a fully democratic state. 
Its 2012 and 2013 elections resulted in the first 
constitutional changes of government in post-Soviet Georgia. 
While progress has been real and substantial, more work needs 
to be done for Georgia to realize its goal of an environment 
fully conducive to political pluralism. We will work with all 
parties in Georgia to help ensure the next parliamentary 
elections are the freest and fairest in Georgia's history. The 
United States has been a partner in this effort, with a robust 
assistance program to help Georgia strengthen accountable 
government and consolidate its democratic institutions.
    If Georgia's quest to integrate with the West is to 
succeed, it is critical that we improve the climate for trade 
and investment. This is an area where the government and 
opposition should be able to come together. Georgia needs to 
take advantage of the great opportunity that its association 
agreement with the European Union represents, particularly 
increased trade between Georgia and Europe through the 
agreement's deep and comprehensive free trade area.
    The United States appreciates Georgia's growing role as a 
regional business, trade, and logistics hub, and its 
contributions to the revitalization of East-West trade routes 
along the New Silk Road connecting European and Asian markets. 
If confirmed, I will support Georgia's focus on the future, 
particularly economic development, to create jobs and 
contribute to the long-term stability of the country and the 
region.
    Mr. Chairman, there is a lot of work to do. And if the 
Senate confirms my nomination, I look forward to rolling up my 
sleeves and getting down to it, advancing the mutual interests 
of the American and Georgian peoples.
    Thank you. And I welcome your questions.
    [The prepared statement of Ambassador Kelly follows:]

                   Prepared Statement of Ian C. Kelly

    Mr. Chairman and distinguished members of the committee, I am 
deeply honored to appear before you as President Obama's nominee to 
serve as Ambassador to Georgia. It is a particular privilege for me to 
have a second opportunity to be considered by this committee, and serve 
the American people in this way. If confirmed, I pledge to devote all 
my efforts to advancing U.S. interests and promoting the security of 
the American people. For all 30 years of my government service, my wife 
Francesca has been by my side, and I am pleased to introduce her to you 
today.
    Nearly 40 years ago, after spending several months studying in the 
U.S.S.R., I visited Tbilisi, and was immediately struck by the vitality 
and independent spirit of the Georgian people. A few years later, the 
Georgian people were in the forefront of the movement to free the 
captive nations of the Soviet Union. We supported their desire for 
independence then, and we continue to support it today.
    The United States stands firm in its commitment to Georgia's 
sovereignty, territorial integrity, and independence. We condemn the 
ongoing occupation of Georgia's Abkhazia and South Ossetia regions by 
Russian forces. Furthermore, Russia's so-called ``treaties'' of 
alliance with the de facto authorities Abkhazia and South Ossetia have 
absolutely no legitimacy.
    An important principle is at stake here--the right of all sovereign 
nations to choose their own alliances and associations. The United 
States and our allies support Georgia's Euro-Atlantic aspirations, 
including NATO membership and EU integration. No third party has the 
right to veto those aspirations. If confirmed, I look forward to 
working with the Georgian Government and my Embassy colleagues in 
realizing these aspirations. I will also urge all Georgians who believe 
in their country's Euro-Atlantic goals to unite in supporting them and 
moving their country forward.
    On its road toward Euro-Atlantic integration, Georgia has made 
substantial progress toward becoming a fully democratic state. Its 2012 
and 2013 elections resulted in the first constitutional changes of 
government in post-Soviet Georgia. While progress has been real and 
substantial, more work needs to be done for Georgia to realize its goal 
of an environment fully conducive to political pluralism. We will work 
with all parties in Georgia to help ensure the next parliamentary 
elections are the freest and fairest in Georgia's history. The U.S. has 
been a partner in this effort, with a robust assistance program to help 
Georgia strengthen accountable government, and consolidate its 
democratic institutions.
    If Georgia's quest to integrate with the West is to succeed, it is 
critical that it improve the climate for trade and investment. This is 
an area where the government and the opposition should be able to come 
together. Georgia needs to take advantage of the great opportunity that 
its Association Agreement with the European Union represents--
particularly increased trade between Georgia and Europe through the 
Agreement's Deep and Comprehensive Free Trade Area. The United States 
appreciates Georgia's growing role as a regional business, trade and 
logistics hub, and its contributions to the revitalization of East-West 
trade routes along the New Silk Road, connecting European and Asian 
markets. If confirmed, I will support Georgia's focus on the future, 
particularly economic development, to create jobs and contribute to the 
long term stability of the country and the region.
    Mr. Chairman, there is a lot of work to do, and if the Senate 
confirms my nomination, I look forward to rolling up my sleeves and 
getting down to it, advancing the mutual interests of the American and 
Georgian peoples. Thank you, and I welcome your questions.

    Senator Johnson. Thank you, Ambassador Kelly.
    Our next nominee is Mrs. Nancy Pettit. Am I pronouncing 
that right? Good. I am generally bad about that 30 percent of 
the time. [Laughter.]
    Mrs. Pettit is our nominee for Ambassador to Latvia. She is 
currently the Director of the Western European Affairs Office 
within the State Department and is a career Foreign Service 
officer. Mrs. Pettit's past positions include the Director of 
Policy Planning and Coordination of the State Department's 
Bureau of International Narcotics and Law Enforcement and 
positions at posts in Kiev, Moscow, and Vienna.
    Mrs. Pettit.

       STATEMENT OF NANCY BIKOFF PETTIT, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF LATVIA

    Ms. Pettit. Mr. Chairman and distinguished members of the 
committee, I am honored to appear before you today as President 
Obama's nominee to be the next U.S. Ambassador to the Republic 
of Latvia.
    I am deeply grateful to President Obama and Secretary Kerry 
for the confidence and trust they have placed in me. If 
confirmed by the Senate, I pledge to devote my time, energy, 
and expertise to advancing America's interests in Latvia and 
strengthening relations between our two countries. I commit 
myself to working closely with the committee, your staffs, and 
your congressional colleagues to build on our shared interest 
in a strong and vibrant U.S.-Latvian partnership.
    I would like to thank my family, friends, and colleagues 
for providing encouragement and support throughout my career. 
In particular, special thanks to my husband, Jim, the current 
Ambassador to Moldova; daughters, Sarah and Liz Pettit; and 
son-in-law, Josh Katzenstein, who are watching this online. I 
would like to introduce my sisters, Ellen Phipps and Barbara 
Bikoff, and brother, Russ Bikoff, who are here with me today. 
Thank you for coming.
    I have spent the bulk of my 33-year career as a public 
servant working on issues related to Europe and Transatlantic 
relations. From my early days as a desk officer in the Office 
of Soviet Union Affairs to my most recent position as Director 
of the Office of Western European Affairs, I have devoted my 
professional life to advancing our shared vision of a Europe 
that is whole, free, and at peace. I believe these experiences 
have prepared me well to lead our mission in Riga, and, if 
confirmed, continue our work with the Republic of Latvia on a 
forward-looking, ambitious global agenda.
    The United States and Latvia share a long history of 
friendship and cooperation. From the darkest days of the Soviet 
occupation through the end of the cold war, the United States 
commitment to the Latvian people never wavered. Following the 
restoration of Latvia's independence in 1991, the country 
embarked on an ambitious path toward Euro-Atlantic integration, 
joining NATO and the EU in 2004, adopting the Euro in 2014, and 
setting a powerful example for other countries aspiring to be 
free.
    As allies, United States and Latvian troops have fought 
together and died together in Iraq and Afghanistan. Through our 
cooperation in Afghanistan, Latvia has become one of only seven 
countries certified as Joint Terminal Attack Controllers who 
provide essential targeting expertise for NATO combat missions. 
With U.S. support, Latvia has also increased its development 
assistance to countries around the world. Whether it is 
contributing humanitarian assistance to fight the spread of 
ebola or supporting international efforts to combat ISIL, 
Latvia has always stepped up to the plate.
    Without a doubt, Russia's continued aggression in Ukraine 
has challenged the vision of a Europe that is whole, free, and 
at peace, threatening the security of Latvia and all of our 
regional allies. This is why the United States has deployed 
company-sized units to Poland and the three Baltic States since 
April 2014 under Operation Atlantic Resolve. Through President 
Obama's $1 billion European Reassurance Initiative, we will 
maintain this rotational presence for as long as necessary, and 
fund military infrastructure improvement projects. These 
efforts embody the United States commitment to Latvia's 
security under NATO's article 5.
    Meanwhile, Latvia has enacted legislation to meet its NATO 
defense spending commitment of 2 percent of GDP by 2020, and is 
using its role as the current EU-presidency country to maintain 
international pressure on Russia while also offering Moscow a 
diplomatic off-ramp, should it choose peace over further 
escalation. Mr. Chairman, if confirmed by the Senate, I will 
continue to grow our partnership with Latvia to the benefit of 
our shared security and prosperity.
    Latvia has made advancing the Transatlantic Trade and 
Investment Partnership, TTIP, a top priority. If confirmed, I 
will work with my Latvian counterparts to build Latvian support 
for a comprehensive TTIP agreement that boosts economic growth, 
creates jobs, and sets a new standard for trade that reflects 
our shared values.
    While Latvia has made great strides over the past 20 years 
implementing democratic reforms and rule of law, I believe more 
work needs to be done in the areas of combating corruption, 
addressing Holocaust-era legacies, such as Jewish communal 
property restitution, and taking advantage of Latvia's rich 
cultural diversity.
    Almost 25 years ago, Latvia emerged from captivity seeking 
the democracy, prosperity, and security that we in the 
transatlantic community have enjoyed for nearly seven decades. 
Through sheer determination, sacrifice, and an enduring 
commitment to the principles of freedom, the Latvian people 
persevered and succeeded in building a vibrant, flourishing 
democracy. If confirmed, I promise to further enrich the bonds 
between our countries and continue confronting global 
challenges together as close partners and NATO allies.
    Thank you again for the privilege of appearing before you 
today, and I look forward to answering your questions.
    [The prepared statement of Ms. Pettit follows:]

               Prepared Statement of Nancy Bikoff Pettit

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee to be 
the next U.S. Ambassador to the Republic of Latvia. I am deeply 
grateful to President Obama and Secretary Kerry for the confidence and 
trust they have placed in me in this nomination. If confirmed by the 
Senate, I pledge to devote my time, energy, and expertise to advancing 
America's interests in Latvia and strengthening the relations between 
our two countries. I also commit myself to working closely with the 
committee, your staffs, and your congressional colleagues to build on 
our shared interest in a strong and vibrant U.S.-Latvian partnership.
    I have spent the bulk of my 33-year career as a public servant 
working on issues related to Europe and trans-Atlantic relations. From 
my early days as a desk officer in the Office of Soviet Union Affairs 
to my most recent position as Director of the Office of Western 
European Affairs, I have devoted a considerable amount of my life to 
advancing our shared vision of a Europe whole, free, and at peace. I 
believe these experiences have prepared me well to lead our mission in 
Riga and--if confirmed--continue our work with the Republic of Latvia 
on a forward-looking and ambitious global agenda.
    The United States and Latvia share a long history of unbroken 
friendship and cooperation. From the darkest days of the Soviet 
occupation through the end of the cold war, the United States 
commitment to the Latvian people never wavered. Following the 
restoration of Latvia's independence in 1991, Latvia embarked on an 
ambitious path toward euro-Atlantic integration: joining NATO and the 
EU in 2004; adopting the euro in 2014; and setting a powerful example 
for other countries aspiring to be free.
    Today, Latvia is one of our most reliable and valued partners. As 
allies, U.S. and Latvian troops have fought together and died together 
in Iraq and Afghanistan. Through our cooperation in Afghanistan, Latvia 
has become one of only seven countries that are certified as Joint 
Terminal Attack Controllers (JTAC), providing essential targeting 
expertise for NATO combat missions. With U.S. support, Latvia has also 
increased its development assistance to countries around the world. For 
example, through the State Department's Emerging Donors Challenge Fund, 
the United States and Latvia are cofinancing a project in Uzbekistan to 
enhance export control and border security capabilities. Whether it is 
contributing humanitarian assistance to fight the spread of Ebola or 
supporting international efforts to combat ISIL, Latvia has always 
stepped up to the plate. In short, Latvia is a global partner of first 
resort.
    Without a doubt, Russia's continued aggression in Ukraine has 
challenged the vision I referenced earlier of a Europe whole, free, and 
at peace, threatening the security of Latvia and all of our allies in 
the region. This is why the United States has deployed company-sized 
units to Poland and the three Baltic States since April 2014 under 
Operation Atlantic Resolve. Through President Obama's $1 billion 
European Reassurance Initiative (ERI), we will sustain this persistent, 
rotational presence for as long as necessary.ERI will also fund 
military infrastructure improvement projects, including at Latvia's 
Lielvarde airbase and Adazi training grounds. These efforts embody the 
United States commitment to Latvia's security under NATO's Article 5. 
Meanwhile, Latvia has enacted legislation to meet its NATO defense 
spending commitment of 2 percent of GDP by 2020 and is using its role 
as the current rotating EU Presidency country to maintain international 
pressure on Russia, while also offering Moscow a diplomatic off-ramp 
should it choose peace over further escalation.
    Mr. Chairman, if confirmed by the Senate, I will continue to grow 
our partnership with Latvia to the benefit of our shared security and 
prosperity. Latvia has made advancing the Transatlantic Trade and 
Investment Partnership (TTIP) a top priority of its EU Presidency. If 
confirmed, I will work hand in hand with my Latvian counterparts to 
build Latvian support for a comprehensive TTIP agreement that boosts 
economic growth, creates jobs, and sets the global gold standard for 
trade that reflects our shared values. In 2014, bilateral trade in 
goods between the United States and Latvia totaled $702 million. While 
significant, I think there is a tremendous potential to further 
cultivate our economic ties. If confirmed, I will work to increase our 
bilateral trade and investment. While Latvia has made great strides 
over the past 20 years implementing democratic reforms and rule of law, 
I believe more work needs to be done in the areas of combating 
corruption, addressing Holocaust-era legacies such as Jewish communal 
property restitution, and taking advantage of Latvia's rich cultural 
diversity.
    Almost 25 years ago, Latvia reemerged from captivity seeking the 
democracy, prosperity, and security that we in the transatlantic 
community have enjoyed for almost seven decades. Through sheer 
determination, sacrifice, and an enduring commitment to the principles 
of freedom, the Latvian people persevered and succeeded in building a 
vibrant, flourishing democracy. If confirmed, I promise to further 
enrich the bonds between our countries and to continue confronting 
global challenges together, as close partners and NATO allies. Thank 
you again for the privilege of appearing before you today, and I look 
forward to answering your questions.

    Senator Johnson. Thank you, Mrs. Pettit.
    Our next nominee is Ms. Azita Raji. She is our nominee for 
Ambassador to Sweden. Ms. Raji has served as a member of the 
President's Commission on White House Fellowships since 2013. 
She is also trustee of Barnard College and a member of the 
advisory board of the Social Enterprise Program at Columbia 
Business School. As a former investment banker, Ms. Raji 
specialized in European emerging markets.
    Ms. Raji.

           STATEMENT OF AZITA RAJI, NOMINATED TO BE 
              AMBASSADOR TO THE KINGDOM OF SWEDEN

    Ms. Raji. Thank you, Mr. Chairman, Senator Shaheen, and 
Senator Kaine.
    I would like to begin by recognizing my parents for their 
wisdom, strength, and encouragement--which are fundamental to 
my being here today. I am deeply grateful to my husband, Gary 
Syman, who is here. And four out of our five daughters are 
here, and I am grateful to all of them. Our son-in-law, and 
especially our grandson, Theo--7-year-old Theo is here. And I 
have to admit that I am a little bit nervous today, because I 
really have not had a chance to prepare for his questions, 
which will undoubtedly come afterward. [Laughter.]
    Ms. Raji. I am here as a woman whose family endured the 
life-altering upheaval of the Iranian Revolution and found new 
hope and new life in the United States of America. Throughout 
my life, while working or studying in countries as different as 
Iran, Switzerland, Japan, and the United States, I arrived at 
the realization that I had been, in principle and sensibility, 
quintessentially American all along. So, I have never taken for 
granted the freedom to speak my mind, the protection of the 
rule of law, or our belief in unity within diversity, which is 
expressed in our country's de facto motto, E Pluribus Unum. 
That is the belief that has made me effective in what I have 
chosen to do in business, in philanthropy, in the political 
arena, and even in my own family life.
    So, it is specially meaningful for me to find myself here 
before this distinguished committee, trusted by President Obama 
and Secretary Kerry to represent the United States of America, 
and to be asked to do so in Sweden, a valued partner and close 
friend of the United States, but also a country where respect 
for the rule of law, individual freedoms, human dignity, and 
gender equality are hallmarks of national identity and defining 
pillars of government policy.
    So, if confirmed, I pledge and look forward to working 
closely with you to enhance our cooperation with Sweden by 
focusing on four priorities:
    First, Sweden is an engaged and effective partner of the 
United States and NATO in promoting global peace and security. 
Our close cooperation in Ukraine as it fights against Russian 
aggression and seeks to implement ambitious reforms is vital 
and greatly appreciated. Elsewhere, whether in Africa, 
Afghanistan, Iraq, Syria, and Kosovo, or in fighting ISIL, 
corruption, and global terrorism, Sweden is a valued and 
reliable partner. So, if confirmed, I will work to further 
strengthen our bilateral partnership with Sweden in security, 
as well as supporting their cooperation with NATO.
    Second, as a strong and long-standing economic partner of 
the United States--Sweden is the 11th-largest direct foreign 
investor and one of the fastest growing and largest investors 
per capita in the United States. Our economic partnership with 
Sweden supports over 190,000 American jobs. And, if confirmed, 
I will continue our focus on promoting bilateral trade and 
investment, specially focusing on emerging industries like 
clean energy, biotech, and information technologies.
    Third, we have a very strong cooperation on environmental 
issues with Sweden, including our cooperation in the 
increasingly important Arctic region. If confirmed, I will 
continue our focus on addressing environmental challenges with 
Sweden, stewardship of the Arctic region, and scientific 
research. I also look forward to engaging with our Swedish 
partners both in the private sector and the government, to 
explore opportunities to leverage Sweden's energy leadership in 
the EU and its global leadership in environmental and clean 
energy technologies to advance our shared interest in an energy 
secure Europe.
    Fourth, our friendship with Sweden is anchored in the close 
affinity between our peoples and the shared commitment that we 
have to democratic ideals and institutions around the world. 
That is manifested through our development cooperation, where 
Sweden is a strong and global leader, and we advance our 
interests in democracy promotion, human rights, gender 
equality, governance, and transparency around the world. There 
are--today there are 4 million Americans in the United States 
who claim a Swedish descent. They contribute to our culture and 
society and have been part of our economic development and 
success from the beginning by building successful companies, 
such as Nordstrom, Walgreens, and Greyhound. If confirmed, I 
will dedicate myself to advance this enduring friendship by 
taking a multistakeholder approach to developing partnerships 
outside of the government between our peoples and institutions 
and leveraging technology and public-private partnerships to 
reach new audiences.
    Finally, we have an excellent, strong, dedicated, and 
talented Embassy team in Stockholm. And, if confirmed, I look 
forward to working with them and facilitating their continued 
success and being their biggest advocate. Their safety, as well 
as that of all Americans, will be my first priority, and most 
important priority.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Ms. Raji follows:]

                    Prepared Statement of Azita Raji

    Thank you, Mr. Chairman, Ranking Member Shaheen, and distinguished 
members of the committee.
    I would like to begin by recognizing my parents for their wisdom, 
strength, and encouragement, which are fundamental to my being here 
today. I am grateful to my husband, Gary Syman, for his unwavering 
support, and to our five daughters and seven grandchildren, for the joy 
and inspiration they bring me.
    I appear before you as a woman whose family endured the life-
altering upheaval of the Iranian Revolution, and found new hope and new 
life in the United States of America. Throughout my life, while living, 
studying or working in countries as different as Iran, Switzerland, 
Japan, Italy, France, and the United States, I arrived at the 
realization that I had been, in principle and sensibility, 
quintessentially American all along. And so, I have never taken for 
granted the freedom to speak my mind, the protection of the rule of 
law, and the opportunities to benefit from the similarities and 
differences that create the transformative mosaic that is America. Our 
country's de facto motto, E Pluribus Unum, speaks to our belief in 
unity within diversity, a belief that has made me effective in what I 
have chosen to do in business, in philanthropy, in the political arena, 
and even in my own family life. And it also speaks to a world that in 
its differing views has never been in greater need of commonality, 
kinship, and partnership.
    Which is why it is an especially meaningful honor for me to find 
myself here, before this distinguished committee, and to have the trust 
of President Obama and Secretary Kerry to represent and serve the 
United States of America, and to be asked to do so in Sweden, an 
important partner and close friend of the United States and a country 
where respect for the rule of law, individual freedoms, human dignity 
and gender equality are hallmarks of national identity and defining 
pillars of government policy.
    If confirmed, I pledge to serve our country to the best of my 
ability and to work closely with you to deepen the friendship and 
expand the cooperation between the United States and Sweden. I will 
focus on four priorities.
    First, security challenges. Sweden is an engaged and effective 
strategic partner of the United States and NATO in promoting global 
peace and security. Our close cooperation with Sweden in support of 
Ukraine, as it fights against Russian aggression and seeks to implement 
ambitious reforms, is vital and greatly appreciated. Elsewhere, whether 
in Afghanistan (where Sweden made significant contributions to the ISAF 
mission, and currently provides assistance to Resolute Support Mission 
and support to Afghan democracy), or Africa (where Sweden is one of the 
largest contributors to Power Africa and to the global fight against 
Ebola), or Syria, Iraq, and Kosovo, or in fighting ISIL, global 
terrorism and corruption, Sweden is valued and respected as a reliable 
partner in advancing peace. If confirmed, I will seek to further 
strengthen our bilateral cooperation in addressing regional and global 
security challenges, and to support Sweden's partnership with NATO.
    Second, economic prosperity. As a strong and long-standing economic 
and trading partner since 1783, Sweden is the 11th-largest direct 
investor and one of the fastest growing and largest investors per 
capita in the United States. Our economic partnership supports over 
190,000 American jobs across 50 States. If confirmed, I will continue 
our focus on promoting bilateral trade and investment opportunities, 
particularly in emerging industries, such as information technology, 
biotech, and clean energy.
    Today our economic focus must not just be bilateral, but also 
multilateral. The Transatlantic Trade and Investment Partnership is an 
important building block of the wider trade policy agenda between the 
EU and the United States and will be an important focus of our work in 
the coming months. Sweden is a strong supporter of TTIP and a logical 
partner in this effort, having relied on free trade to become one of 
the world's most globalized, competitive, and innovative modern 
industrial economies. If confirmed, I will encourage Sweden to 
highlight and leverage its economic success in creating prosperity 
through trade to promote our shared objective of a comprehensive TTIP 
agreement.
    Third, environmental challenges. The United States and Sweden have 
an active partnership on environmental and climate change issues, 
including our close cooperation in the increasingly important Arctic 
region. Sweden chaired the Arctic Council from 2011 to 2013, and its 
accomplishments included a historic marine oil pollution preparedness 
and response agreement. The United States assumed chairmanship of the 
Arctic Council in April 2015. If confirmed, I will prioritize our 
continued bilateral cooperation on environmental and climate change 
issues, stewardship of the Arctic region, and scientific research. As a 
global leader in environmental sustainability and clean energy 
technologies, Sweden derives more than half of its energy from 
renewable sources, making it less dependent on energy imports than most 
EU countries. If confirmed, I will engage with our partners in Swedish 
Government and private sector to explore innovative ways to leverage 
Sweden's energy leadership in the EU to advance our shared priorities 
in addressing climate change and European energy security.
    Fourth, shared values. Our growing friendship with Sweden remains 
anchored in the genuine affinity between our peoples and our strong 
commitment to democratic values and institutions, a commitment 
expressed in our global partnership to protect and advance human rights 
and civil society. It is a friendship based on a shared heritage that 
dates back to 1638, when the first generation of Swedish immigrants 
arrived on the shores of what is now the State of Delaware. Today over 
4 million Americans claim Swedish descent. They continue to enrich our 
culture and society and have been part of our economic success from the 
beginning, by building such successful companies as Walgreens, 
Greyhound, and Nordstrom. If confirmed, I will dedicate myself to 
deepen this enduring friendship, by encouraging understanding of our 
similarities and respectful debating of our differences, and by taking 
a multistakeholder approach to building innovative partnerships outside 
the government between our peoples and institutions and leveraging 
technology and public-private partnerships to connect with new 
audiences.
    Finally, if confirmed, I look forward to meeting the talented and 
dedicated professionals of our Embassy in Stockholm. I will support 
their continued success and be their biggest advocate, as we work side 
by side to advance our vision of a deeper friendship and stronger 
partnership between the United States and Sweden. The safety and 
security of our team, and that of all Americans in Sweden, will always 
remain my top priority.
    Thank you very much for your consideration. I look forward to your 
questions.

    Senator Johnson. Thank you, Ms. Raji.
    Now, our next nominee is Ms. Julieta Noyes. She is our 
nominee to become Ambassador to Croatia. Ms. Noyes currently 
serves as Deputy Assistant Secretary within the Bureau of 
European and Eurasian Affairs at the State Department, and is a 
career member of the Foreign Service. Her past positions 
include Deputy Chief of Mission at the U.S. Embassy to the Holy 
See and Director of the Office of Multilateral and Global 
Affairs at the State Department's Bureau of Democracy, Human 
Rights, and Labor.
    Ms. Noyes.

          STATEMENT OF JULIETA VALLS NOYES, NOMINATED 
          TO BE AMBASSADOR TO THE REPUBLIC OF CROATIA

    Ms. Noyes. Mr. Chairman, Senator Shaheen, Senator Kaine, it 
is a privilege to appear before you today as President Obama's 
nominee to be Ambassador to the Republic of Croatia.
    I am honored by the confidence placed in me by the 
President and by Secretary Kerry. If confirmed, I look forward 
to working with this committee and with the Congress to advance 
United States-Croatian relations.
    I am a first-generation American, the daughter of Cuban 
refugees who had to come to this country to build a new life. 
And I am profoundly grateful for the opportunity to repay that 
debt with service to our great Nation.
    It is a personal pleasure for me to be here with my 
husband, Nick, a recently retired Foreign Service officer, and 
our children, Alexandra, Nicholas, and Matthew. With 30 years 
as a Foreign Service family, we have many happy memories of 
times spent together overseas and here at home.
    For the last 2 years, I have managed U.S. relations with 
the European Union and worked on trade, energy, security, and 
other issues with the EU. I have also overseen the work of U.S. 
Embassies in 15 Western European countries, managing a broad 
range of political, economic, security, and consular issues, 
and doing broad outreach. My work with nine NATO countries on 
security issues and defense sales has provided valuable lessons 
that I would apply, if confirmed, as the Ambassador in Croatia.
    As Deputy Chief of Mission to the Holy See, I learned how 
to engage the Catholic leadership, which is important in 
Croatia. And in all my assignments, I have worked hard to 
develop and empower my teams to foster high performance and 
high morale. I would do the same in Zagreb.
    Mr. Chairman, our bilateral relationship with Croatia is 
strong and productive. Just last week, Assistant Secretary 
Victoria Nuland met with Foreign Minister Vesna Pusic to 
discuss how our partnership can advance our many common 
interests. In April, Embassy Zagreb and private-sector partners 
hosted the fifth Brown Forum in Croatia, a regional conference 
convened to focus on how to spur entrepreneurship and increase 
trade and investment between our countries and with the region.
    Croatia has come a long way since its hard-won 
independence, becoming a NATO member in 2009 and the European 
Union's 28th and newest member in 2013. The citizens of Croatia 
deserve warm congratulations for all that they have achieved.
    And Croatia has generously shared the lessons that it has 
learned assisting its western Balkan partners and neighbors in 
their aspirations for Euro-Atlantic integration. We encourage 
the Government of Croatia to press forward and, in so doing, 
help address the remaining bilateral and regional legacies of 
the Balkans conflict.
    Croatia is an active and committed EU member. A Croatian 
commissioner leads the EU's work on international cooperation 
and development. Croatian members of the European Parliament 
serve on the critical budget, economic, foreign affairs, and 
other committees. Croatia's leaders have endorsed a U.S./EU 
Transatlantic Trade and Investment Partnership.
    As a reliable NATO ally, Croatia makes valued contributions 
to global security. We appreciate its commitment, first, to the 
international Security Assistance Force and now the Resolute 
Support Mission in Afghanistan, as well as to the Kosovo Force, 
where Croatia provides valuable helicopter lift support. 
Croatia is a member of the global coalition to fight ISIL, and 
it was among the first countries to send observers into Crimea, 
and continues to provide monitors in eastern Ukraine for the 
OSCE mission. Brave Croatian men and women are serving in 11 
peacekeeping missions around the world.
    Croatia now enjoys a mature democratic society, yet there 
is more to be done. It continues to be challenged by sluggish 
growth and far too high unemployment. The Croatian Government 
has recognized the urgent need for reforms to welcome business 
investment, eradicate excessive redtape, and increase 
transparency and predictability for businesses.
    If confirmed, I will seek to further solidify our 
partnership with Croatia, building on the exemplary work of our 
outgoing Ambassador and my good friend Ken Merten and our 
terrific country team in Zagreb.
    As Ambassador, I will promote several interconnected 
priorities in Croatia: fostering economic growth and 
prosperity, helping Croatia realize its potential to become a 
regional energy hub, strengthening the capabilities of a 
willing security partner, and advancing regional stability. If 
confirmed, I will encourage Croatia's contributions to U.S.-EU 
relations in pivotal areas, such as transatlantic trade, energy 
security, and collaboration in the digital sphere. I will also 
actively uphold our strategic alliance in NATO, the Resolute 
Support Mission in Afghanistan, the Counter-ISIL Coalition, and 
more.
    Mr. Chairman, Senator Shaheen, Senator Kaine, thank you for 
this opportunity to appear before you. I would welcome any 
questions.
    [The prepared statement of Ms. Noyes follows:]

               Prepared Statement of Julieta Valls Noyes

    Mr. Chairman and members of the committee, it is a privilege to 
appear before you today as President Obama's nominee to serve as the 
United States Ambassador to the Republic of Croatia. I am honored by 
the confidence placed in me by the President and Secretary Kerry. If 
confirmed, I look forward to working with this committee and the 
Congress in advancing U.S. interests in Croatia.
    I am a first generation American, the daughter of Cuban refugees 
who built a new home in the United States, and I am profoundly grateful 
for the opportunity to repay that debt with service to our great 
country. It is a personal pleasure to be accompanied today by my 
husband, Nick, a recently retired Foreign Service officer, and our 
children, Alexandra, Nicholas, and Matthew. As a Foreign Service family 
of 30 years we treasure many happy memories from our time living in 
Italy, Panama, Spain, Guatemala, and Mexico, as well as here at home.
    For the last 2 years, I have managed U.S. relations with the 
European Union and have worked on trade, energy, security, and other 
issues in the EU. I also have overseen the work of 12 U.S. embassies 
and 19 consulates, covering 15 Western European countries, managing a 
broad range of political, economic, security, and consular issues, and 
carrying out outreach to publics and governments. My work with nine 
NATO members on security issues, defense sales, and participation in 
the Pentagon's review of force realignment in Europe has provided me 
useful lessons for directing the mission in Croatia. As Deputy Chief of 
Mission at our Embassy to the Holy See, I learned how to engage the 
Catholic leadership, which is important in Croatia. In all my 
assignments, I have worked hard to develop and empower my teams, and to 
foster high performance and strong morale; I would do the same in 
Zagreb.
    Our bilateral relationship with Croatia is strong and productive. 
Just last week, Assistant Secretary Victoria Nuland met with Foreign 
Minister Vesna Pusic to discuss how our partnership can advance our 
many common interests. In April, the United States Embassy and private 
sector partners hosted the fifth Brown Forum in Croatia, a regional 
conference convened to focus on how to spur entrepreneurship and 
increase trade and investment between the United States, Croatia, and 
the region.
    Croatia has come a long way since its hard-won independence, 
becoming a NATO member in 2009 and the European Union's 28th and newest 
member in 2013. The citizens of Croatia deserve warm congratulations 
for all they have accomplished. And Croatia has generously shared the 
lessons it has learned, assisting its western Balkan neighbors in their 
aspirations for Euro-Atlantic integration. The United States supports 
the strides Croatia has made toward nurturing regional cooperation. We 
encourage the Croatian Government to continue to press forward and, in 
so doing, help address the remaining bilateral and regional legacies of 
the Balkans conflict.
    Croatia is an active and committed EU member. A Croatian 
Commissioner leads the EU's important work on international cooperation 
and development. Croatian members of the European Parliament 
participate on the critical Budget, Economic, Foreign Affairs and other 
committees. Croatia's leaders have endorsed a U.S.-EU Transatlantic 
Trade and Investment Partnership, or TTIP.
    As a reliable NATO ally, Croatia makes valued contributions to 
global security. We appreciate its commitment to the former 
International Security Assistance Force (ISAF) and now in the Resolute 
Support Mission in Afghanistan, and in the Kosovo Force (KFOR), where 
Croatia provides vital helicopter lift support. Croatia is a member of 
the Global Coalition to Counter ISIL. It was among the first countries 
to send OSCE observers into Crimea, and continues to provide monitors 
for eastern Ukraine. Brave Croatian men and women are participating in 
11 peacekeeping missions around the world.
    Croatia now enjoys a mature democratic society, yet there is more 
to be done. It continues to be challenged by sluggish growth and far-
too-high unemployment. The Croatian Government has recognized the 
urgent need for reforms to welcome business investment, eradicate 
excessive redtape, and increase transparency and predictability for 
businesses. The United States will support Croatian reforms that lead 
to sustainable economic growth and prosperity. We want to strengthen 
the foundation for mutual economic expansion and trade relations.
    If confirmed, I will seek to further solidify our partnership with 
Croatia, building on the exemplary work of our outgoing Ambassador and 
my good friend, Ken Merten, and our country team in Zagreb. As 
Ambassador, I will promote several interconnected priorities in 
Croatia: championing economic growth and prosperity, helping Croatia 
realize its potential to become a regional energy hub, strengthening 
the capabilities of a willing security partner, and fostering regional 
stability. My experience working directly with the European Union and 
its western European members has afforded me insights into our highest 
objectives with Europe. If confirmed, I will foster Croatia's 
contributions to U.S.-EU relations in pivotal areas such as the 
transatlantic trade deal, energy security, and collaboration between 
our countries in the digital sphere. I will also actively uphold our 
strategic alliance in NATO, the Resolute Support Mission in 
Afghanistan, the Counter-ISIL Coalition, the State Partnership Program 
with the Minnesota National Guard, and more.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you. I welcome any questions you may have.

    Senator Johnson. Thank you, Ms. Noyes.
    Again, thank you all for your testimony and your 
willingness to serve our Nation. I would also like to join our 
ranking member, Senator Shaheen, in welcoming all of the family 
members here in the committee room, as well as those watching 
online.
    So much of a country's success, whether it is for peace and 
stability or otherwise, really relies on economic prosperity. 
What I would like to do is go right down the panel, starting 
with you, Mr. Delawie. I would like each nominee to talk about 
the economic opportunities in the countries that you are going 
to represent the United States to, as well as the economic 
challenges. What is the greatest opportunity for cooperation 
between your country and the United States?
    Mr. Delawie.
    Mr. Delawie. Thank you very much, Mr. Chairman.
    Right now, the economic situation in Kosovo is improving. 
It is one of the poorest countries in Europe. Gross domestic 
product is about $7 billion a year. It has significant 
challenges, as I outlined in my testimony, but it also has 
significant opportunities. It has a very young population. It 
has significant natural resources that remain largely untapped. 
And it has a very, very talented population, which is 
demonstrated by the fact that the biggest export of Kosovo is 
its talented population that is elsewhere in--mostly in Western 
Europe, and that is sending billions of dollars in remittances 
home every year.
    The opportunities for cooperation are, at present, limited 
by corruption, which I addressed in my testimony. And that is 
something that we have to work with the Kosovar Government to 
address. And I will do so, certainly vigorously, if confirmed.
    Senator Johnson. Thank you, Mr. Delawie.
    Ambassador Kelly.
    Ambassador Kelly. Thank you, Mr. Chairman, for that 
question.
    Our bilateral assistance program is very much focused on 
trade and investment and enhancing opportunities for American 
businesses to invest in Georgia. And we very much see a growing 
economy as very much a part of our foreign policy priority 
promoting stability and security in the region.
    I think, in terms of the greatest opportunities for 
Georgia, I think it is--I mentioned, already, its recent 
agreement with the EU, to increase trade with the EU. And I 
think that is a tremendous opportunity for Georgia. And also, I 
think the--Georgia's strategic position as--between Asia and 
Europe--and I think that it can really gain a lot from being 
this East-West corridor for energy, in particular, but also for 
transporting goods from Central Asia to Europe. And, if 
confirmed, I look forward to working with you and with the 
Congress in identifying more opportunities.
    Thank you.
    Senator Johnson. Thank you, Ambassador Kelly.
    Mrs. Pettit.
    Ms. Pettit. Thank you, Senator, for that question.
    Deepening deepening trade and investment with Latvia is one 
of the highest priorities in our relationship. Last year, our 
total bilateral trade investment was about $700 million. If I 
am confirmed, I will work to expand that.
    In terms of opportunities, I think the Northern 
Distribution Network, where Riga served as a hub for materiel 
going to Afghanistan, could possibly be developed into a new 
economic opportunity for Latvia. That is an area I would 
explore with them, if confirmed.
    Thank you.
    Senator Johnson. Thank you, Mrs. Pettit.
    Ms. Raji.
    Ms. Raji. Thank you.
    In many ways, we already have a very strong and long-
lasting trade and investment partnership with Sweden that goes 
back to 1783. We have a robust--as I mentioned earlier, they 
are a strong foreign investor in the United States, and we have 
a--strong trade relationships.
    Bilaterally, the opportunities lie in looking at industries 
where there is potential. For example, in the smart-grid 
industry in the United States, we are one of the leaders--
export leaders--I think, the third-leading export leader of 
transmission and distribution equipment, electrical equipment. 
It is an area that was identified by the National Export 
Initiative as an area of high growth and potential for the 
United States to grow. Because of the interest, 
internationally, in investing in dated electricity 
infrastructure, that is an area that we can explore with Sweden 
that they possibly could be interested, as well as energy 
efficiency in the built environment. So, that is just to pick 
one sector.
    Sweden presents a successful example in building prosperity 
through trade. It has managed to transform its once 
agricultural society over the last 150 years into one of the 
world's most prosperous, competitive, and innovative modern 
industrials economies, largely relying on trade, where it is 
now over 50 percent of its GDP.
    So, we will explore the bilateral opportunities. But, I 
think there is also a multilateral opportunity. Because of 
Sweden's strong example in building prosperity through trade, I 
will look for opportunities to explore with our Swedish 
partners to see how we can highlight and leverage that strong 
example in Europe in reaching our shared objective of a 
Transatlantic and Pacific partnership.
    And finally, I want to just say that my background in 
business and finance, especially in emerging markets, have made 
me realize the important connection between economic prosperity 
and political stability and civil society. So, I share 
Secretary Kerry's view that foreign policy is--economic policy 
is foreign policy. And if confirmed, I will use my skills in 
business and finance towards economic statecraft to open new 
markets for the United States, encourage foreign investment in 
the United States, and increase exports.
    Senator Johnson. Thank you, Ms. Raji.
    Ms. Noyes.
    Ms. Noyes. Thank you, Senator
    Croatia has suffered from recession for the last 6 years, 
and is only barely now coming to a position of positive growth. 
Its unemployment rate ranges from about 18\1/2\ percent for the 
general population to about 48 percent for youth. Its deficit 
is 5.7 percent of GDP, and its debt-to-GDP ratio is about 85 
percent. Clearly it has a lot of economic issues that it needs 
to address in addition to its difficult investment climate.
    But, Croatia also has some real advantages. It is 
breathtakingly beautiful country, very attractive to tourists. 
If confirmed, I hope that you will come to visit. [Laughter.]
    Ms. Noyes. But, it is also--it has an enormously motivated, 
educated population. Its recent admission into the European 
Union has given it additional resources and expertise that it 
can draw upon. And Croatia also has energy resources of its 
own. It is these energy resources that the Croatian government 
is trying to expand on, in creating and making itself into a 
regional energy hub.
    If confirmed, I would seek to work with the Croatian 
Government to tackle some of these very difficult economic 
issues, working with our government here, but also with the 
European Union and with Brussels and with other countries in 
the neighborhood, because a number of these are issues that 
need to be tackled regionally.
    Thank you.
    Senator Johnson. Thank you, Ms. Noyes.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Delawie, I had the opportunity to visit Kosovo in 
February of 2010 on their Independence Day--their second 
Independence Day. And I remember the people on the streets 
waving flags from Kosovo and from America, thanking Americans. 
It was very moving to see that.
    I was very encouraged when I heard that there had been an 
agreement reached between Kosovo and Serbia to lessen tensions 
between the two countries. Can you give us an update on how the 
relationship with Serbia is going and what additional progress 
has been made since that accord was signed?
    Mr. Delawie. Thank you very much, Senator Shaheen. And, if 
confirmed, I certainly hope you will come back and see what has 
changed since February of 2010.
    The relationship between Kosovo and Serbia is going pretty 
well. We are firm supporters of the EU-sponsored dialogue. 
There was an agreement in 2013 that lead--is on a path toward 
normalization of relations between the two countries. There has 
been a lot of progress in the last couple of years. The police 
are integrated now. The Serbs and Albanians are integrated in 
the same police department. Judicial structures are merged. The 
Serbian parallel courts in the northern chunk of the country 
are no longer taking new cases. There are liaison offices 
between the two countries. And the EU has been very 
enthusiastic in helping to promote this, using the idea of a 
potential path for both countries ultimately into EU 
integration.
    The new EU High Rep. Mogherini was in Kosovo, actually, in 
March. She helped initiate some additional progress on judicial 
issues. So, progress is going pretty well, and I think we can 
all be happy of the role that the United States has played in 
promoting that progress.
    Thank you.
    Senator Shaheen. I agree, I think we should be very proud 
of that.
    Can you also talk about the Serbian church? Because, as I 
remember, one of the concerns was the fact that many of the 
churches--Serbian churches were a concern, in terms of 
potential protection in the future.
    Mr. Delawie. That is certainly one of the issues the 
Embassy in Pristina pays close attention to. They are talking 
about it. Protecting the Serbian orthodox heritage in Kosovo is 
certainly one of the key elements of this normalization 
dialogue, something our Embassy pays close attention to. And, 
as far as I know, that has been going relatively well. And I 
believe the Embassy has even put some money from the 
Ambassador's fund into remodeling and protecting some of the 
Serbian orthodox churches in Kosovo.
    Senator Shaheen. Thank you. That is very encouraging.
    Ms. Noyes, can you--you mentioned the importance of Croatia 
in the region, in the Balkans, in terms of its future economic 
prosperity. Can you talk about what you, as Ambassador, would 
be able to do to encourage economic prosperity with the region, 
and also what the United States is doing to promote economic 
prosperity?
    Ms. Noyes. Thank you, Senator.
    Yes. One of the things that Croatia is seeking to do is to 
become a regional energy hub. It has resources of its own. It 
provides about 60 percent of its own gas for domestic use, but 
it also has a great geographic location and some infrastructure 
that already exists that would allow it, if it could build an 
LNG import terminal--and they are looking at building one on 
the Krk Island--that would allow it to be a hub for the 
exportation--or the importation of LNG, and then the 
exportation to other countries in the region. This would not 
only help with regional needs, but it would also reduce 
reliance on Russian gas.
    And Croatia has also been very engaged and active within 
the EU and in NATO in advancing the Euro-Atlantic integration 
of its partners, and seeking to have greater relations between 
the EU and other countries in the Balkans.
    So, if confirmed, I would certainly seek to promote both of 
those objectives--the LNG terminal, the creation of the 
regional energy hub--but also to support Croatia's advocacy and 
its emphasis on making all of the countries of the Balkans 
oriented toward the West, both in terms of their democratic 
behavior, and their economic growth and their free-market 
orientation.
    Senator Shaheen. And to what extent has Croatia been 
affected, or has it been affected, by the financial 
difficulties in Greece?
    Ms. Noyes. Well, Senator, Croatia and Greece are the only 
two countries in the EU that have suffered from a recession for 
the last 6 years. In each case--and I know this a bit on Greece 
because of my current job, working with the European Union--
there are factors in each country that are specific to the 
country, but there is no doubt that both countries were also 
affected by the greater economic downturn in Europe. As we see 
now with dropping energy prices--frankly, the drop in the value 
of the Euro--we are starting to see growth turning around in 
Europe. And, in fact, we are now seeing Croatia coming out of 
the recession and doing better.
    So, they are not necessarily linked to each other, but they 
both have been affected by greater trends, as well as by 
macroeconomic issues that they need to tackle independently, 
both in Zagreb and in Athens.
    Senator Shaheen. Thank you.
    Mr. Kelly, one of the issues that I have had the 
opportunity to raise with Georgian officials when they have 
been here is concern about the perception that arrests of some 
former political leaders raise questions about the rule of law 
and the judicial system in Georgia. And to what extent do you 
think it is--what can we do, in the United States, to encourage 
Georgia to continue to move forward with democracy and to 
address the potential to see former political opponents as 
subject to arrest, as opposed to what they are, which is former 
political opponents?
    Ambassador Kelly. Well, thank you very much for that 
question.
    Our top foreign policy priority for Georgia is helping it 
attain its aspirations, join Euro-Atlantic institutions. And, 
of course, we would not want to see anything degrade that 
trajectory toward Euro-Atlantic integration. And in our 
bilateral contacts, I know that Ambassador Norland has had many 
good consultations with the Georgian Government, and we have 
stressed the importance of not even having the perception of 
any kind of political use of any kind of judicial levers.
    Having said that, we also have a very strong cooperation 
with Georgia to ensure that the judicial process, in all cases, 
is transparent and accountable. And I think Georgia has made 
great strides in ensuring the independence of the judiciary.
    But, you have put your finger on one of the issues, that, 
if you do confirm me, that I am going to keep a very close eye 
on. So, thank you very much for raising that.
    Senator Shaheen. Well, thank you. And my time is up, but 
let me just say how much I appreciate the close relationship 
that America and Georgia have had, and their contributions to 
our efforts in Afghanistan have been significant. So, I think 
they have made tremendous progress, and want to see them 
continue to succeed.
    Ambassador Kelly. I second that. Thank you.
    Senator Johnson. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Ms. Noyes, you talked a little bit about the security 
cooperation between the U.S. and Croatia. And I not--have not 
been to Croatia, so, when my staff and I were digging--it is 
pretty impressive. Croatia participates in U.N. peacekeeping 
operations in the Golan Heights, Cyprus, Sudan, Liberia, 
Lebanon, Western Sahara, and the Kashmir, supports NATO-led 
Kosovo Force, and also the ISAF in Afghanistan. Kind of feel 
funny saying that and saying, Are there things we can do to 
even strengthen the relationship? I am very impressed with the 
commitment of Croatia to peacekeeping through U.N. and other 
multinational organizations. But, are there remaining 
opportunities for us to deepen that tie?
    Ms. Noyes. Thank you, Senator.
    Yes, Croatia definitely punches above its weight on the 
security front. It participates in 11 peacekeeping operations. 
It is been with us in Afghanistan since 2003. It provided 
ammunition and weapons to both Iraqi forces and the peshmerga. 
It assisted with the removal of Syrian chemical weapons. And it 
is absolutely a critical support to KFOR through its provision 
of lift support.
    That said, there is always more that can be done. And, if 
confirmed, I would look forward to working further with the 
forces in Croatia. One of the biggest priorities that we have 
there is to help Croatia modernize its equipment. It still has 
too much reliance on Soviet-era equipment, and still relies on 
Russia for spare parts and, in some cases, servicing of that 
equipment. So, one of my priorities, if confirmed, would be to 
help Croatia modernize its forces and its equipment to make 
them more interoperable with NATO forces, and to continue to 
support the efforts of this very willing ally.
    Senator Kaine. Great.
    Ms. Raji, I look forward to working with you on the 
economic issues. Virginia has a huge amount of direct 
investment from Swedish companies. The only vehicle 
manufacturing plant in Virginia is a Volvo truck plant in 
Dublin, VA.
    But, I want to ask you about something else. You talked a 
little bit about the Arctic Council. I--this is something that 
I was not too aware of before I came to the Senate, but the 
United States has just taken on the chairmanship of the Arctic 
Council for the coming year. Talk a little bit about 
initiatives that you think the United States and Sweden can do 
together as the Arctic really changes in its strategic 
importance.
    Ms. Raji. Senator, thank you for that question.
    The Arctic region, in fact, is an area of increasing 
importance. With the melting of the Arctic ice, there are new 
opportunities and challenges in shipping, commerce, trade, 
environmental protection, fishing, hunting, and the livelihood 
and the living conditions of the 4 million indigenous Arctic 
people that live there.
    Correctly stated, we just took over the chairmanship of the 
Arctic Council. We have a very strong partnership with Sweden 
in the Arctic region and other environmental issues that I 
mentioned. But, focusing on the Arctic Council, we have a 
scientific cooperation with Sweden. We were cofounders of the 
Clean Air and--Climate and Clean Air Coalition, which focuses 
on reducing so-called short-lived climate pollutants, or black 
carbon, which is a concern in the Arctic. And Sweden has 
particular expertise and knowledge in that area. We cooperate 
with them on that, and on that Council. Scientific research is 
another area.
    And, broadly speaking, I would say that we share the values 
that the Arctic Council is the preeminent intergovernmental 
forum for cooperation. The Arctic has always been a region of 
no conflict and cooperation on scientific research and 
environmental issues. And all of the members are interested in 
maintaining that practical cooperation in our mutual goals.
    Senator Kaine. Great. Thank you so much for that.
    Ms. Pettit, I am interested in Latvia, with all of the 
challenges we deal with on this committee with Russian 
influence and their sort of more bellicose recent posture. 
Latvia--I guess, 38 percent of Latvians claim Russian as their 
mother tongue, and there are strong Russian cultural ties. What 
is the view of the, kind of, Latvian population about Russian 
expansionism in the Baltic region and elsewhere in Europe?
    Ms. Pettit. Thank you, Senator, for that question.
    As you said, there are a large number of Russian speakers 
in Latvia. However, those Russian speakers are very supportive 
of Latvia's participation in Euro-Atlantic institutions. For 
example, the political party that represents these Russian 
speakers believes that Latvia should be a member of the EU. And 
there are many advantages to Latvia and all Latvians being 
members of the EU.
    I think one of the areas of concern is Russian propaganda. 
The Latvian Government is addressing this issue. They are 
addressing it by increasing the number of Russian-language TV 
programs. They have a new television studio for their Russian-
language programs. The United States is working closely with 
Latvia on this. VOA and RFE/RL now have a nightly Russian 
language program that is available online for Russian speakers 
who are looking for objective, truth-based media. And I--if 
confirmed--will continue to work with Latvia to address these 
issues.
    I think the message we have to share is--as Azita mentioned 
and Julieta mentioned--is our strength through diversity. And 
we have a great message to share with Latvia.
    Thank you.
    Senator Kaine. Thank you.
    Mr. Kelly, talk a little bit about the delicate situation 
that Georgia's in with Russia in the--a posture that they are 
in, contrary to international law, on the two areas of Georgia 
that you described. Georgia still has been a participant with 
NATO in missions. I think there is one underway, or recently, 
Noble Partner, on the borders of Russia, 300 American soldiers 
accompanied by 14 Bradley tanks transported across the Black 
Sea from Romania. NATO is scheduled to open a training center 
in Georgia later this year. How does Georgia manage this with 
the challenge with Russia now? And what can we do to shore them 
up?
    Ambassador Kelly. Thank you very much, Mr. Senator.
    I think you actually identified one of the most tangible 
examples of the way we are shoring up their aspirations to join 
NATO, and that is the training exercises going on right now, 
Noble Partner, where we have hundreds of American troops from 
173rd Brigade who are helping the Georgians become 
interoperable with the NATO Response Force. And that is a--it 
is a real token of our support for this bedrock principle that 
every nation has the right to choose its own alliances. And 
Georgia has overwhelmingly chosen to join NATO.
    So, much of our bilateral assistance, of course, is 
designed to help Georgia become interoperable with NATO. You 
also, I think, very sensitively pointed out the very difficult 
position they are in, with 20 percent of their territory under 
occupation and with the Russian troops there, digging in, 
showing no signs of living up to the terms of the cease-fire 
agreement in 2008 which called for Russian troops to return to 
their previous positions. They are actually hardening the 
border, putting up fences and surveillance cameras. They are 
denying monitors from--the international community, like the EU 
monitoring mission, from coming in, which was also agreed to in 
the 2008 cease-fire.
    And I think, in general, we have to keep saying, over and 
over again, that we support their aspirations to integrate with 
Europe--to join NATO, to integrate with the EU. And, of course, 
we need to have tangible support, as well. And we are doing it. 
The Congress has made Georgia one of the largest recipients of 
foreign military financing. It is also one of the largest 
recipients of IMET, the International Military Education and 
Training. So, we really are, I think, you know, walking the 
walk as well as talking the talk. And, if confirmed, I will, as 
I say, continue to make this our priority, to support their 
Euro-Atlantic aspirations.
    Senator Kaine. Thank you.
    Mr. Chair, could I ask Mr. Delawie just one brief question? 
Thank you. I am over my time, but----
    Mr. Delawie, I am curious about Kosovo, the number of 
foreign fighters that go from Kosovo into the ISIL theater in 
Syria and Iraq--per capita, among the highest in the world. I 
am puzzled by that. Could you educate the committee about why 
that is? What is it about Kosovo--it is geographic or sort of 
ideological positioning that leads that to be the case?
    Mr. Delawie. I do not think there is one easy answer, 
Senator Kaine. They are--Kosovo is the poorest country in 
Europe. Unemployment, around 40 percent; among youth, it is 
probably in the neighborhood of 60 percent. So, there is this 
economic factor. There are some--some people are going for 
ideological reasons. Some people are going for excitement and 
adventure, unfortunately. So, there are a variety of challenges 
that Kosovo faces.
    Fortunately, Kosovo passed a law, just 2 months ago, in 
March, that would criminalize many of the aspects of going to 
Syria and Iraq to join with ISIL. And we are working with the 
Embassy in Pristina very hard with the justice authorities, the 
police authorities, to train prosecutors, and to help the 
government get a grip on the problem.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Appreciate all of your testimony.
    Senator Johnson. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Good to 
see you in the Chair's spot. I enjoyed our 2 years sitting at 
the head of this subcommittee.
    And we have got a really fantastic group of nominees here 
today, all going to very interesting countries, many of them in 
transition. So, a few questions.
    Maybe, Mr. Kelly, I will start with you to extend this 
conversation about Georgia's future. So, I am a believer that 
we are starting to compromise NATO's open-door policy without a 
real, tangible plan for enlargement that includes Georgia, 
understanding that it is a very difficult nut to crack with 
respect to the occupied and contested territories. But, that 
does not seem impossible. And so, I want to ask you, sort of, 
What are the preconditions from our standpoint right now, from 
the U.S.'s standpoint, as to what has to happen in order for 
Georgia to get NATO membership? And do you foresee a 
circumstance in which you could give the portion of Georgia 
that is not contested, is not occupied, membership, or give a 
type of membership with reservations concerning the extent of 
the occupied and contested territories?
    Ambassador Kelly. Thank you. Thank you very much.
    Of course, you know NATO is a consensus organization with 
all 28 members. I think, you know, the United States has a good 
story to tell, in terms of our support for Georgia's desire to 
join NATO. And I think that we really are doing a lot to help 
them prepare for membership. And so, I think a lot of what we 
have to do, and what we have to continue to do, because I think 
the Embassy is already doing it, is highlighting what the 
United States is doing, in terms of training Georgians, of 
integrating them into NATO missions. But, you have--you know, 
you have put your finger on the really hard part of it, of 
course, which is the fact that Russia occupies 20 percent of 
Georgia and has compromised its territorial integrity. And so, 
I think that we just have to stay focused on the overall goal 
of supporting Georgia in becoming more interoperable with NATO, 
in reforming its defense institutions--and we have multiple 
programs through State and through the Defense Department to do 
that--and also be very steadfast in rejecting Russia's illegal 
occupation of 20 percent of Georgia's territory.
    Senator Murphy. But, does that not effectively result in 
Russia having veto power over Georgia's accession to NATO? If 
we do not hold out the possibility that there is a pathway for 
them to join while the occupation continues, do we not 
essentially put the decision in Russia's hands?
    Ambassador Kelly. I do not think that Russia or any other 
country has a veto on a country's desire to join NATO. We do 
have good--I think, a good dialogue through NATO with Georgia, 
through the NATO-Georgia Commission. I think that the path is 
clear to any aspirant to join NATO. Obviously, the occupation 
of South Ossetia and Abkhazia is a very difficult issue. But, 
this overarching principle, that all countries should be able 
to choose their own alliances and associations, is something 
that has to be really defended, and the United States has to do 
everything it can--and, of course, is doing everything it can--
to help Georgia realize its aspirations.
    Senator Murphy. I think we have been halfhearted in our 
attempts to lead the way to Georgia's membership in NATO. I 
hope that we change at least the volume of our tune.
    Mr. Delawie, you got big shoes to fill. Ambassador Jacobson 
has done really important work for us at a very critical time. 
I visited with her in Pristina last fall at a moment in which I 
think she showed immense discretion in forcing the different 
parties surrounding the government to make their own decisions 
about a coalition moving forward, resisting the temptation that 
sometimes comes with that position to get too involved.
    I also visited the American University there, and one of 
the answers to the question about the roots of extremism is a 
real sense of hopelessness amongst young people in Kosovo, you 
know, large numbers of youth unemployed and very little access 
to higher education. The American University there is a unique 
asset that provides a pathway into the middle class for young 
people in Kosovo. I just hope that you will support their 
mission, support the work that the new government is trying to 
do to expand opportunities for higher education. It is really 
a--it is really stunning, the lack of opportunities to get 
advanced degrees in Kosovo. AUK is, right now, their best bet 
to do that, but, hopefully, that experience can be modeled, 
moving forward.
    Mr. Delawie. Thank you very much, Senator.
    I know Ambassador Jacobson has done an incredible job. And 
I am looking forward to doing my best to fill her shoes. But, 
it will be hard.
    Fortunately, USAID has devoted a fair amount of resources 
to supporting the access to higher education for Kosovar 
citizens. You are right, there is a long way to go. And I 
certainly agree with you about this--the hopelessness. We 
have--we saw another example of that, not just in the ISIL 
direction, but also, in the winter, there were a fair number of 
Kosovo citizens who were attempting to emigrate, basically, to 
Germany. Another symptom of that. So----
    Senator Murphy. And I think we need to help the Kosovar 
Government understand that this is not just about law 
enforcement. They have really done some impressive things when 
it is come to standing up law enforcement's capabilities. But, 
they have, I think, got to understand the holistic strategy.
    Just one question, Ms. Raji. Good to see you. I do not know 
if this question has been asked, but--Sweden stepped up their 
participation with NATO. They are obviously--have agreements 
with NATO through memorandums of understanding for training and 
military exercises. Important, given the forward positioning of 
Russia in and around the region, to have that dialogue 
continue. I assume that they are going to continue to be an 
active participant with NATO in whatever joint exercises are 
appropriate, and that we will encourage them to increase their 
level of military integration so that we can send a coordinated 
message, even with non-NATO partners, to Russia that, if they 
are going to continue to run submarines and jet planes over our 
friends' heads and to our friends' shores, that there is going 
to be a coordinated response.
    Ms. Raji. Great to see you, Senator Murphy, and thank you 
for that question.
    As you know, Sweden is not an ally of NATO, but it is one 
of the--only five recently designated Enhanced Opportunities 
Partners. It has made significant contributions to the missions 
of NATO, and, in fact, other multilateral institutions, such as 
the EU and the U.N. in peacekeeping and military exercises and 
so forth.
    With regard to NATO, Sweden currently has troops under 
allied command in Kosovo and Afghanistan, and played a 
significant role in protecting the no-fly zone in Libya in 
2011. And it continues to increase, as you said, some of its 
involvement with NATO in the exercises. For example, it joined 
the NATO Response Force in 2013, which will enhance joint 
capabilities. And it did sign an MOU for a Host Nation Support 
Agreement in 2014, which will regulate exercises and military 
transits on its soil, that has not been ratified, however.
    We very much have a strong partnership with Sweden on NATO 
missions. And, if confirmed, I will continue their cooperation 
and partnership with NATO.
    Senator Murphy. Great.
    If I--just one quick question I forgot to ask Mr. Delawie. 
The Riga summit starts tomorrow. There was an expectation that 
there might be an extension of visa liberalization for Georgia 
coming. It does not look like that may happen. I hope I--I ask 
you whether it is going to be part of your mission to continue 
to work with Georgia and with the Europeans to try to--I am 
sorry--Mr. Kelly--I am sorry--to Mr. Kelly--although you can 
respond to that question, as well, if you would like----
    [Laughter.]
    Senator Murphy [continuing]. Mr. Delawie. Be happy to know 
what the Kosovar's Ambassador's position is on Georgia visa 
liberalization. [Laughter.]
    Mr. Kelly, what is the role that we can play in trying to 
help them come to a better place on the question of visa 
liberalization, vis-a-vis the European Union, post-Riga?
    Ambassador Kelly. Yes, thank you very much.
    Yes, as I said before, the--our--really, our top foreign 
policy priority is to keep Georgia on a good trajectory. And I 
think that it will be important that the Euro-Atlantic 
community sends signals that Georgia is progressing on this 
path. And I think this will help address some of the concerns 
you mentioned before, obviously, about NATO's open door, too.
    But, we--you know, a lot of our assistance program has been 
sort of reoriented to help Georgia implement the terms of the 
Association Agreement. And that is because it is really in our 
U.S. national interests that Georgia become integrated into the 
European Union and into European institutions, in general. So, 
we can help them bilaterally, with the EU, obviously, in 
pushing Georgia's case forward. But, we can also help them with 
our bilateral assistance program. And I know that we are doing 
that.
    And if I am confirmed, I will make it a real priority to 
ensure that that trajectory stays on a nice steep path toward 
Euro-Atlantic integration. And, of course, that includes the 
EU.
    Senator Murphy. Thank you, Mr. Chairman, for allowing me to 
go over time.
    Senator Johnson. Not a problem.
    I am going to ask one other question before I close it out, 
so did you have any further questions before----
    Senator Murphy. That is okay.
    Senator Johnson. Okay.
    This question is really directed at Ambassador Kelly and 
Mrs. Pettit, but if any of the other nominees have anything to 
add, please do.
    My first congressional delegation trip was in the spring of 
2011, before I was on the Foreign Relations Committee, and we 
visited Georgia, Ukraine, Lithuania, Latvia, and Estonia. Back 
in 2011, the representatives from all of those countries were 
talking about what Russia was trying to do to undermine those 
fledgling democracies.
    We are seeing that, obviously, in spades today. I 
personally do not think Vladimir Putin is looking for off-
ramps. I think Vladimir Putin is looking for on-ramps. I am 
highly concerned about Latvia. I am not sure what he is going 
to be doing in Georgia. I was up, by the way, right at the 
border, and I was able to look through binoculars at the 
Russians in the occupied areas.
    The question I have is, What concerns do you have, in terms 
of what Russia is doing in Latvia or within the region, to 
undermine those democracies?
    We will start with you, Mrs. Pettit.
    Ms. Pettit. Thank you, Senator.
    I do not think I can say it any better than President Obama 
said it in Tallinn, right before the Wales summit in 2014, when 
he said that the defense of Tallinn and Riga and Vilnius is as 
important as the defense of Berlin, London, and Paris. And that 
is our very strong message.
    Latvia is our NATO ally. And, through our bilateral 
security assistance and through our NATO activities--including 
the Baltic air policing, the IMET program, our FMF program, 
Section 2282, all of the Wales commitments that we are in the 
process of implementing, the establishment of the command-and-
control unit in Latvia--each of the Baltic States will get a 
command-and-control unit, the Very High Readiness Task Force 
that is also being implemented--there is a lot going on. And I 
think this sends a very strong message of deterrence.
    Senator Johnson. Again, that is what we are doing----
    Ms. Pettit. Right.
    Senator Johnson. I am more interested, in terms of your 
knowledge of what Russia is doing. And I will throw out there 
the propaganda. I know I have gone over to Ukraine a couple of 
times with Senator Murphy, and with the bipartisan delegations, 
and it has always struck me how the Senators are shocked at how 
effective Vladimir Putin and Russia's propaganda is without any 
pushback, or virtually no pushback, on the part of the West.
    Ms. Pettit. Well, I----
    Senator Johnson. So, again, I guess I am looking just for 
your knowledge of what Russia----
    Ms. Pettit. Right.
    Senator Johnson [continuing]. Is doing----
    Ms. Pettit. There----
    Senator Johnson [continuing]. To undermine----
    Ms. Pettit. There is----
    Senator Johnson [continuing]. The democracy.
    Ms. Pettit. There is plenty of propaganda directed towards 
Latvia's Russian-language speakers. This is absolutely true. 
But, Latvia is addressing this issue. As I mentioned earlier, 
they have greatly enhanced the number of TV news programs they 
offer in the Russian language. Russian journalists are leaving 
Russia and moving to Riga. For example, a former editor of one 
of the biggest news platforms in Russia opened her own new 
platform in Riga, where there is press freedom. And she has 
gotten literally thousands and thousands of hits on her 
Russian-language Web site. The BBG, here in the United States, 
is working with--the Broadcasting Board of Governors--is 
working with Radio Free Europe and Radio Liberty and making 
available new Russian-language programs online. Our goal is 
provide objective, truth-based media to the Russian speakers in 
Latvia. This is an issue of concern also within the EU. And I 
believe, that shortly, the EU will also be working on this 
matter and addressing this matter.
    If I am confirmed, I will travel to the Russian-speaking 
areas of Latvia and engage directly with this population. And I 
think this is a great opportunity, again, to discuss or to 
present the U.S. view that there is strength in diversity.
    Senator Johnson. Okay, again, I am concerned with the 
hybrid or ambiguous war. And obviously, propaganda is part of 
that. Maybe the first part. But, there may be other actions 
Russia might be taking.
    Ambassador Kelly, are you aware of anything not even just 
in Georgia, but elsewhere in the Baltic States or--that ring of 
democracies around Russia? We obviously know it is happening in 
Ukraine.
    Ambassador Kelly. Yes, I--you know, as someone who has 
followed Russia for many, many years, and am a bit of a Russia 
media junkie, I am appalled by the kind of--well, let us just--
let us call it by its real name--by the lies that are being 
spread about what our intentions are in supporting these 
countries and about what Russia is actually doing in some of 
these countries.
    And in the case of Georgia, I think that they are ramping 
up their outreach to Georgia, in terms of media. There are some 
NGOs that are active in Georgia. And I think this gets back to 
what Senator Murphy was talking about, about our concern about 
the--maintaining the level of support within Georgia. And we do 
not want to see that level fall. And so, we would be concerned 
about messages that run contrary to our values, that we are 
seeing in the Russian media. And we need to, as I say, ensure 
that Georgians appreciate that we stand behind them in 
supporting their desire to join NATO and to join European 
institutions.
    And I know that Ambassador Norland has been very active in 
highlighting U.S. assistance for Georgia, in all of our public 
pronouncements, highlighting our support for their territorial 
integrity. And, as somebody who has dealt quite a bit in public 
diplomacy, I, too, will relish being able to go around Georgia 
and really show the Georgians that we are behind them.
    Senator Johnson. Okay.
    Any of the other nominees want to add anything on that 
subject? Sure. Mr. Delawie.
    Mr. Delawie. Thank you, Senator, just very briefly.
    Two of the major streets in Kosovo, in Pristina, are named 
George W. Bush Street and Bill Clinton Street. I do not think 
there will be fertile ground for any--too much Russian 
propaganda, in Kosovo at least.
    Senator Johnson. We rely on you to make sure that remains 
that way.
    Senator Murphy.
    Senator Murphy. Mr. Chairman, one final question that I 
meant to ask Ms. Noyes.
    The Croatians are currently flying Russian-made helicopters 
and are very interested in buying American-made Black Hawk 
helicopters, something that I spoke to their Defense Minister 
about when I was there, on the same trip where I visited 
Pristina. Can you commit to us that you are going to work with 
the Croatians to make a significant upgrade to their helicopter 
fleet, such that they are no longer reliant on Russian 
technology?
    Ms. Noyes. Thank you, Senator.
    I am delighted to report that this year we are working with 
Croatia to get them some Kiowas. And I understand that 
discussions are underway with regard to the Black Hawks. And, 
if confirmed, I would be delighted to support those efforts.
    Senator Murphy. Black Hawks are much better than Kiowas. 
[Laughter.]
    Thank you very much, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    Again, I would like to thank all of our witnesses for your 
testimony, for your thoughtful questions to our answers, and 
for your willingness to serve this Nation. I would like to 
thank your families for their willingness to support your 
service to this Nation.
    If there is anything we can, as a subcommittee of the 
Senate Foreign Relations Committee, do to help you succeed in 
your mission as our Ambassadors to those countries, please let 
us know. We really do not think often enough about how what 
this committee says, what we do, and resolutions we may be able 
to pass, how that can actually aid you. Think of this committee 
and keep in communication with us. Again certainly wish you the 
best.
    With that, the record will remain open for questions and 
statements until the close of business on Friday.
    This hearing is adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                              ----------                              


                               NOMINATION

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Gayle Smith, of Ohio, to be Administrator of the United States 
        Agency for International Development
                              ----------                              

    The committee met, pursuant to notice, at 2:03 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Johnson, Gardner, Perdue, 
Cardin, Menendez, Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The committee will come to order.
    And I am going to go ahead and get rolling, and I am sure 
that Senator Cardin will be here in just a minute.
    USAID oversees 20 billion dollar's worth of aid to over 100 
countries. It is a very important organization. Gayle Smith, 
who has been nominated, will have 18 months to have an impact 
on this organization. And I will say that I think it is 
beneficial that she has served with the President's National 
Security Council and therefore inside the main building. She is 
someone that is trusted and not coming from the outside, and I 
know has been involved in these kinds of issues for a long, 
long time.
    I do hope that in your testimony you will talk about some 
of the priorities that we have had here. I think you know the 
committee passed out on a unanimous vote an effort to end 
modern slavery. I know it is something that you for years have 
been involved in and care about, but I hope you will speak to 
that in your testimony.
    I think you also know that there is a significant effort 
underway to reform the Food for Peace program. I know we talked 
about that some in our office. It is very important to many 
members. I think you know that some of us share the belief that 
it is a travesty that we are not serving the millions of people 
that could be served by reforming this program and being held 
hostage to various groups that benefit in ways that are not 
beneficial to the people that we are trying to serve.
    And then thirdly, Power Africa. There is a significant 
effort underway to make sure that the millions of people that 
do not have electricity even in their homes are able to do that 
in Africa, in particular, as I mentioned. And in the past, we 
have had some environmental issues that have said that, look, 
it is more important. We would rather people not have any 
electricity in their homes if it is going to produce 1 ounce of 
carbon, which is not exactly, I think, a policy or a value that 
most Americans adhere to. And I think we have been able to get 
to a place that achieves a balance between the environmental 
concerns, which I understand are real, but also the concern for 
human beings. And hopefully, you will talk a little bit about 
that.
    I am glad that in your testimony you are going to refer to 
the tremendous need to deal with the organizational issues 
within the organization. This year we hope to pass into law a 
State Department authorization. We passed it out of committee 
unanimously last week. We are attempting, still, to deal with 
that through NDAA. At some point we need to do the same with 
USAID, but you internally will be able to do much.
    So, I want to thank you for being here. I want to thank you 
for your willingness to serve. Again, I am glad the executive 
branch has nominated someone that has the kind of experience 
that you have.
    And when Senator Cardin arrives he may want to make some 
opening comments, but I think short of that it would probably 
be best--unless one of the other committee members would like 
to address--if you would go ahead and give your testimony. We 
would appreciate it.

STATEMENT OF GAYLE SMITH, NOMINATED TO BE ADMINISTRATOR OF THE 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Smith. Thank you, Mr. Chairman, and thank you for your 
comments on those important issues.
    Chairman Corker, Senators Menendez and Coons, I am honored 
to appear before you today as the nominee for Administrator of 
the United States Agency for International Development. It is 
truly a privilege for me to come before this committee, and I 
am grateful to President Obama and Secretary Kerry for their 
trust and confidence.
    I would also like to thank my family: my mother who is 
watching from Columbus, OH; my brother Jay and sister-in-law 
Marianne; Ben and Sarah; and my father and sister, who though 
they may not be with us, will always be part of a family that 
has continued to provide me with support and encouragement.
    Since being nominated, I have had the opportunity to 
consult with several members of this committee, and I have 
appreciated your guidance and counsel to ensure that USAID 
remains the world's top development agency.
    In this time of great need and opportunity, USAID is 
working with a diverse array of partners to end extreme 
poverty, foster sustained and inclusive growth, and promote 
resilient democratic societies both as an expression of our 
values and to transform them into peaceful, open, and 
flourishing partners of the United States. These are principles 
that have driven my own approach to international development 
across a 35-year career and principles that I will continue to 
uphold as Administrator.
    If confirmed, it would be an honor and privilege to support 
the USAID mission alongside the more than 9,000 selfless men 
and women who serve the American people in some of the world's 
most challenging environments.
    Should I have the honor of being confirmed, I will pursue 
four priorities.
    First, I will focus the Agency on programs that are 
achieving results and will be selective about initiating new 
commitments. I will work with Congress to institutionalize 
successful programs, including Feed the Future, Power Africa, 
and our efforts in maternal and child health.
    Second, I will provide the leadership, guidance, and tools 
needed to enable USAID staff in Washington and in the field to 
deliver against our most urgent priorities. This includes 
expanding the Agency's work on democracy, rights, and 
governance. This also means expanding the Agency's impact on 
human trafficking and on corruption, laying the groundwork for 
the success of a critically important strategy for Central 
America, and ensuring an equally important transition in 
Afghanistan.
    Third, if confirmed, I will act quickly to ensure that the 
Agency maintains global leadership and agility in responding to 
increasingly complex humanitarian crises. When a natural 
disaster strikes or a humanitarian catastrophe is imminent, 
USAID should be among the first on the ground to help those in 
need. I will also work with this committee and other 
stakeholders to pursue meaningful food aid reform that will 
enable us, as you, sir, suggest, to reach more people more 
quickly and while maintaining our historic partnership with 
U.S. farmers and maritime.
    Fourth and perhaps most important, I will focus on further 
strengthening the institution. This will involve expanding the 
capacity of the Agency to mobilize resources and engagement 
from other partners; to draw on science, technology, and 
innovation to address development challenges; and to increase 
investment in effective local solutions.
    Strengthening USAID also means tackling some of the 
management and operational challenges facing an agency that 
manages resources across more than 80 countries, often in 
complex environments. The Agency must ensure that American 
taxpayer dollars are spent responsibly. It must identify 
successful programs, learn from prior mistakes, apply lessons 
learned, and share best practices, all in an open and 
transparent way. If progress is not being made, it must take 
corrective action or terminate projects.
    But strengthening USAID also means supporting and listening 
to its people both here and overseas. These are men and women 
with knowledge, institutional memory, and invaluable insight. 
Indeed, they take on some of the most daunting tasks and 
aspirational missions one can imagine, all on behalf of our 
Government and our country. It is my goal to give them the 
visibility, respect, and gratitude that they deserve.
    Mr. Chairman and members of the committee, I thank you for 
considering my nomination, and I look forward to your 
questions. Thank you very much.
    [The prepared statement of Ms. Smith follows:]

                  Prepared Statement of Gayle E. Smith

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, I am honored to appear before you today as the nominee for 
Administrator of the United States Agency for International 
Development. It is a privilege to come before this committee, and I am 
grateful to President Obama and Secretary Kerry for their trust and 
confidence.
    I would also like to thank my family--my mother, who is watching 
from Columbus, Ohio, my brother Jay and sister-in-law Marianne, Ben and 
Sarah, and my father and sister, who though they may not be with us, 
will always be part of a family that has supported and encouraged me--a 
family from which I draw strength and humor each and every day.
    Since being nominated, I have had the opportunity to consult with 
several members of this committee, and I have appreciated your guidance 
and counsel to ensure that USAID remains the world's preeminent 
development agency. From the humanitarian emergency in Syria and 
ongoing conflict in eastern Ukraine, to the pressing needs in Central 
America and the Ebola virus in West Africa, today's world demands 
creative solutions to increasingly complex problems.
    Over the past two administrations, we have seen unprecedented 
bipartisan support for the Agency's key initiatives, from global health 
and food security to humanitarian assistance and science and 
technology--as well as a recognition that the Agency's work must be 
informed by a rigorous use of evidence and data to guide 
decisionmaking. These are principles that have driven my own approach 
to international development across a 35 year career, and principles 
that I will continue to uphold as Administrator, if confirmed.
    In this time of great need and opportunity, USAID is working with a 
diverse array of partners to end extreme poverty, foster sustained and 
inclusive growth, and promote resilient democratic societies, both as 
an expression of our values and to help build them into peaceful, open, 
and flourishing partners of the United States.
    If confirmed, it would be an honor and privilege to support the 
USAID mission alongside the selfless men and women who serve the 
American people in some of the world's most challenging environments.
    With more than 9,000 men and women and a strong field presence in 
over 80 countries, USAID is uniquely positioned to flexibly respond to 
humanitarian crises with agility and to provide enduring leadership to 
solve the world's most intractable development challenges--all for less 
than 1 percent of the federal budget.
    Over the past 5 years, USAID has embraced a new model of 
development shaped by data and evidence that brings together an 
increasingly diverse community--private sector companies, 
entrepreneurs, local civil society organizations, universities, NGOs, 
and communities of faith--to deliver meaningful results.
    By using assistance to support capacity-building and reform 
critical policies, the Agency has led a government-wide effort to 
mobilize domestic and foreign private sector investments, including 
more than $10 billion of private commitments through Feed the Future 
and more than $20 billion through Power Africa. USAID has worked with 
entrepreneurs through its Global Development Lab to develop new 
technologies that address longstanding development challenges. It has 
partnered with a vibrant implementing partner community here in the 
United States that has made its own pledges to support reconstruction 
in Haiti, economic development in Africa, and global food security. And 
it has elevated the importance of local solutions, investing in the 
role and wisdom of partners on ground.
    Against this backdrop, USAID has responded to an unprecedented 
number of humanitarian crises spawned by earthquakes and typhoons, 
droughts and famines, the Ebola epidemic, and chronic and new 
conflicts. In the past year, the Agency has simultaneously operated an 
unprecedented five Disaster Assistance Response Teams, bringing new 
knowledge and creativity to bear, whether by building resilience even 
while providing emergency relief or adapting data and technology to 
enable a faster and more efficient response.
    USAID has taken great strides to improve operations, increase 
transparency, embrace accountability and ensure that the Agency is both 
responsive and responsible. There is much more to be done, but as 
someone who has worked with and observed this Agency and our foreign 
assistance programs for decades, I can sincerely offer that it is well 
on a path of reform and revitalization that is yielding and can yield 
greater and more potent returns for the United States and millions of 
men, women, and children around the world.
    I believe that we share the view that both development and 
responding to humanitarian crises are in our national interests and 
that these pursuits reflect our values. I also believe that we share 
the view that we need a strong, capable, effective, and responsible 
USAID to pursue these interests and values. It would be an honor to 
serve as the USAID Administrator, and to turn my qualifications and 
experience to the task of leading the Agency.
    Over a 35-year career in development and international affairs, I 
have spent two decades in the field, much of that time well outside 
capital cities. As a journalist for the BBC, American and European 
outlets, I spent months at a time in active war zones, covering 
conflicts that had escaped the world's attention.
    I have consulted for the World Bank, UNICEF and major American 
foundations. I have worked with several NGOs, including members of the 
World Council of Churches when they mounted a cross-border emergency 
relief operation during the Ethiopian famine. I cofounded two NGOs, and 
today, the Modernizing Foreign Assistance Network and the ENOUGH 
Project remain active and effective advocates for a robust U.S. policy 
in support of development and human rights.
    I have served on a congressional commission--the Helping to Enhance 
the Livelihood of People around the Globe (HELP) Commission--which was 
established to review U.S. foreign aid, and I worked for USAID, based 
in East Africa. I have served two Presidents, as Senior Director for 
African Affairs on President Clinton's National Security Council staff 
and as Senior Director for Development, Democracy, and Humanitarian 
Affairs under President Obama. I have traveled and worked with former 
President Carter and provided advice and assistance to President George 
H.W. Bush's National Security Council staff.
    Over the last 6 years, as a member of the Obama administration, I 
have coordinated administration policy on global development and 
foreign assistance programs, democracy, governance and anticorruption 
efforts, and humanitarian crisis response.
    Early in my tenure, I spearheaded efforts to develop the 
Presidential Study of Global Development Policy and the first-ever 
Presidential Policy Directive on Global Development, which elevated 
development alongside defense and diplomacy as pillars of American 
foreign policy.
    Responding to humanitarian crises has been a significant focus of 
my time at the National Security Council, including the Nepal 
earthquake, major typhoons in Asia, the Ebola outbreak in West Africa, 
and ongoing conflicts in Syria and Iraq.
    Working with departments and agencies, including USAID, I have 
assumed the primary role at the National Security Council for all major 
development priorities, including Feed the Future, Power Africa, ending 
the HIV/AIDS epidemic, maternal and child health, the Open Government 
Partnership, and the Partnership on Illicit Finance. I have co-led, 
with colleagues, the development of the Global Health Security Agenda, 
the U.S.-Africa Leaders Summit, and the President's Stand with Civil 
Society Initiative.
    Should I have the honor of being confirmed, I will pursue four 
priorities.
    First, I will focus the Agency on programs that are achieving 
results and will be selective about initiating new commitments. 
Further, I will work with Congress to institutionalize these programs. 
I will also work with this committee and other stakeholders to pursue 
meaningful food aid reform that will enable us to reach more people, 
more quickly, in times of need--all while maintaining our historic 
partnership with U.S. farmers and maritime.
    Feed the Future and the New Alliance for Food Security and 
Nutrition have together elevated food security on the global agenda, 
registered direct impact on reducing poverty and improving nutrition, 
and mobilized billions of dollars in direct assistance and private 
resources. In 2013 alone, Feed the Future reached more than 12.5 
million children with nutrition interventions and helped more than 7 
million farmers and food producers use new technologies and management 
practices on more than 4 million hectares of land. If confirmed, I will 
ensure that Feed the Future and related nutrition programs continue to 
deliver these evidence-based results.
    With a long-term goal of doubling access to cleaner, reliable, and 
efficient electricity in sub-Saharan Africa, Power Africa has already 
brought more than 4,100 megawatts worth of power transactions to 
financial close and raised over $20 billion from more than 90 private 
sector partners. At the U.S.-Africa Leaders Summit, President Obama 
tripled our initial goal to 30,000 megawatts, aiming to bring 
electricity to 60 million homes and businesses in Africa. If confirmed, 
I will support Power Africa as it closes more power transactions, 
partners with additional businesses, and expands into new countries.
    If confirmed, I will continue the Agency's leadership in the global 
effort to end preventable child and maternal deaths. USAID has led an 
international coalition that developed targeted action plans in 24 
priority countries that will save the lives of 15 million children and 
600,000 women by 2020. I will also work closely with the Office of the 
Global AIDS Coordinator, the Centers for Disease Control, the National 
Institutes of Health, and international and local partners to ensure 
that USAID does all it can to contribute to a goal that is within 
reach: ending the HIV/AIDS epidemic.
    Second, I will provide the leadership, guidance, and tools needed 
to enable USAID's staff in Washington and the field to deliver against 
our most urgent priorities. This includes expanding the Agency's work 
and impact on democracy, rights, and governance by securing and 
mobilizing additional resources to strengthen institutions and the rule 
of law, support and build the capacity of civil society organizations, 
enable free and fair elections, foster dialogue and promote 
transparency, and build on the successes of, for example, the recent 
elections in Nigeria. This also means, as I have discussed with several 
of you during our consultations, expanding the Agency's impact on human 
trafficking and corruption, laying the groundwork for the success of a 
critically important strategy for Central America, and ensuring an 
equally important transition in Afghanistan.
    Third, if confirmed, I will act quickly to ensure that the Agency 
maintains global leadership and agility in responding to increasingly 
complex humanitarian crises around the world. In 2014 alone, USAID 
responded to 49 disasters in 42 countries. In addition to the Ebola 
outbreak in West Africa, these included major crises in Syria, Iraq, 
South Sudan, Central African Republic, and, most recently, the 
earthquake in Nepal.
    The Agency has developed an effective relationship with the 
Department of Defense, which has on multiple occasions deployed in 
support of USAID. USAID also continues to build the capacity and 
resiliency of governments to respond to disasters themselves. When a 
natural disaster strikes or a humanitarian catastrophe is imminent, the 
Agency is and should be among the first on the ground to help those in 
need, and in a world rife with crises, I believe it is critical to 
ensure that USAID remains one step ahead.
    Fourth, and perhaps most important, I will focus on further 
strengthening the institution. That means building on the reform agenda 
launched by Administrator Rajiv Shah. This will involve expanding the 
capacity of the Agency to mobilize resources and engagement from other 
partners; to draw on science, technology, and innovation to address 
development challenges; and to increase investment in effective local 
solutions.
    Strengthening the institution involves tackling some of the 
management and operational challenges facing an agency that manages 
resources across over 80 countries, often in complex environments. It 
is my view, and one that is shared by the staff of USAID, that the 
Agency must ensure that American taxpayer dollars are spent 
responsibly. It must identify successful programs, learn from prior 
mistakes, apply lessons learned, and share best practices--all in an 
open and transparent way. If progress is not being made, it must take 
corrective action or terminate projects.
    USAID has already implemented critical reforms to safeguard 
taxpayer dollars, ensure greater accountability and oversight, and 
focus on sustainable results. In 2013, the Agency issued new guidance 
for awarding contracts that increased the weight of past performance in 
identifying potential contractors. Its new compliance unit has already 
executed over 200 suspension and debarment actions since its inception 
in 2011. If confirmed, I will build on these and other components of 
the reform agenda that strive to make the Agency more accountable to 
Congress and the American people. I will always be fully transparent 
about what is working and what is not, and I will ask for your help in 
solving problems and seeking opportunities.
    Strengthening USAID also means supporting and listening to its 
people, both here in Washington and overseas. These are men and women 
with knowledge, institutional memory, and invaluable insight. Indeed, 
they take on some of the most daunting tasks and aspirational missions 
one can imagine, all on behalf of our government and our country. It is 
my goal to give them the visibility, respect, and gratitude that they 
deserve.
    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
should I have the honor of serving as Administrator, you have my word 
that I will be ambitious but focused; that I will not downplay 
challenges but seek your help; that I will strengthen a growing 
bipartisan consensus on development that serves us and the world so 
well; and that I will pass on to my successor an Agency that is strong 
and effective, responsive and responsible, and transparent and 
accountable--an Agency worthy of its dedicated men and women and those 
around the world that they aim to serve.

    The Chairman. We thank you for being here.
    And our distinguished ranking member--I do not know if you 
want to make some opening comments. Okay.
    As we have mentioned and you have mentioned, we have been 
working on some human trafficking issues and certainly hope to 
do something to majorly affect modern day slavery. What 
approaches has USAID identified and tested that demonstrably 
contribute to reducing modern day slavery?
    Ms. Smith. Thank you, Senator, for the question and also 
for your leadership on this issue.
    I think USAID to date has done a lot to contribute to this 
in the areas of training on rule of law, information and 
education through the media, through NGOs, through new 
applications, and new technologies, through also responding to 
the victims of human trafficking.
    As you and I have discussed, I think that there is a 
foundation to build on and that we could actually do much more. 
If confirmed, I hope that we can expand on the work the agency 
has done to integrate the fight against human trafficking into 
its programs around the world to take full advantage of its 
presence in over 80 countries, to work on, importantly, the 
supply chains that USAID focuses on frequently as it is working 
on economic development and which, as you know, are among the 
places that human traffickers hide and exploit the most 
vulnerable.
    So if confirmed, this is something that I will make a 
priority. I believe the men and women of the Agency believe it 
is a priority, and I very much look forward to working with you 
and others on the committee to explore what more we can do on 
this important agenda.
    The Chairman. We, as you know, have been working on the 
Food for Peace program that I alluded to earlier. There is 
always a tug between working on this and making sure that the 
United States agriculture community is on board because, 
obviously, it matters relative to putting these reforms in 
place.
    There are a lot of people out there that are trying to 
allude to the fact if we create more flexibility, that much of 
what we will be buying we will be buying from Russia and/or 
China, which is not true. But I wonder if you could expand on 
that non-fact?
    Ms. Smith. Senator, I think on this issue the facts show us 
a few things. One, Food for Peace has been an enormously 
valuable program for many, many decades. And I think we want to 
preserve----
    [Audience disruption.]
    The Chairman. One of your supporters, I guess.
    Ms. Smith. Yes. [Laughter.]
    Anyway, if I may continue, Senator. Food for Peace has been 
a vital program. I have spent a lot of time in the field and 
have seen cases where food aid made an important difference, 
but also cases where the greater flexibility to which you 
allude would be enormously valuable in reaching more people 
more quickly. It is my belief that in consultation with key 
partners, constituents, and supporters of that program over 
time--it is my hope that we can find a way forward that would 
give USAID and particularly our people in the field that 
flexibility and ensure that at the same time we reflect and 
take into full account the very legitimate and important 
interests of our communities here. I am optimistic that we can 
find a way forward. I am very encouraged by the number of 
Senators, yourself included, who have raised this during the 
consultations prior to this hearing. And so it is my intent, if 
confirmed, to work very closely with all of you to see if we 
can get this done.
    The Chairman. Your predecessor had worked on, in essence, a 
$95 million transfer from food aid to the maritime industry in 
order to give ourselves the flexibility to feed more people. 
And as bad as that sounds--I actually wish every American could 
be aware of that--but as bad as that sounds, if there is a way 
to phase that out over a period of time so that it got to zero, 
there may be a way of dealing with this. I just wonder if you 
might give some editorial comments regarding that?
    Ms. Smith. Senator, I am a little bit hesitant to get too 
specific on the particulars. But I do think in principle--and I 
followed very closely Administrator Shah's work on this--that 
we can find ways to transition toward a program that is 
mutually beneficial to all involved. And I think considerable 
time has been given to thinking through how to do that within 
the Agency, even after Administrator Shah's departure, and I 
know among members of this committee. So I would be happy to 
sit down with you and with others to work through what exact 
calibration might be most appropriate and to consult, again, 
with all stakeholders so we can find a way to do this.
    The Chairman. On Power Africa--the administration has spent 
a great deal of time talking about renewables being sort of the 
base delivery system in Africa. Not unlike our own country, 
there are places where renewables work decently well and there 
are places where they just do not. Does the administration 
support the development of fossil fuel energy as an integral 
and indispensable part of Power Africa acknowledging that, at 
its base, it is more important that we ensure that people have 
access to electricity than promoting goals that just do not 
agree with the particular area that we are in, and actually are 
not feasible?
    Ms. Smith. Thank you, Senator, again for your interest in 
Power Africa.
    Let me say a couple of things about how we have structured 
this initiative and address your particular question.
    Power Africa, in identifying priority transactions, looks 
at a number of things. It looks at private sector demand, the 
potential for transformational projects, buy-in from the 
government, opportunities to exploit the vast resources on the 
continent, project viability, and overall impact.
    Now, within that, it is our belief that like any modern 
power sector, we need to rely on a broad array of generation 
sources, including wind, solar, hydropower, geothermal, and 
natural gas.
    On the particular issue you raised, except in the poorest 
countries or where those plants are equipped with carbon 
capture and storage technology, the United States does not 
provide public financing for new coal-fired power plants 
pursuant to President Obama's Climate Action Plan of June 2013.
    Now, I want to be very clear that this is with the 
exception of the poorest countries, many of which are on the 
African Continent.
    The Chairman. So you are saying in those areas that are 
very poor, that we are trying deal with the people in most 
need, that the Obama administration would support coal 
facilities to produce power?
    Ms. Smith. I think if these met the other criteria that we 
have designated as key for identifying projects, according to 
the terms of the Climate Action Plan in those poorest 
countries, it would be worthy of consideration.
    The Chairman. If you do not mind, what are some of those 
other criteria?
    Ms. Smith. As I said at the start, we try to look at need, 
where we are going to have transactions that will have impact, 
where we have investor interest, buy-in from the government, 
where our experts take a look and think that the project is 
likely viable and it can make a meaningful contribution to the 
ultimate goal of Power Africa to double access to electricity. 
So those would be the individual project criteria.
    The Chairman. So almost any of the countries we are dealing 
with would meet that criteria?
    Ms. Smith. Most countries in Africa would meet that 
criteria. I think there are a few where it is a little bit 
difficult, given the current conditions.
    The Chairman. And again, natural gas. There are all kinds 
of other ways of dealing with it. I am not here to push one 
particular area. But obviously, when you are living in a place 
with zero electricity, getting that is important, and maybe 
some of these other criteria need to move away. So I think you 
have said that you agree with that--that the Obama 
administration agrees.
    Ms. Smith. I think it is critically important. And I think 
the other thing that Power Africa has done very well is an 
initiative called Beyond the Grid, which also looks at people 
in some of the poorest areas of Africa and the most remote and 
where new technologies and innovations can be deployed through 
micro-grid, or off-grid solutions. So that is another option 
for reaching some of the most vulnerable.
    The Chairman. Thank you.
    Ms. Smith. Thank you.
    Senator Cardin. Well, Mr. Chairman, first thank you for 
scheduling this hearing. I think it is very important that we 
move forward in the nomination process and have a confirmed 
Administrator for USAID. This is a critically important 
position, and I thank you for your cooperation in scheduling 
this hearing.
    I want to thank Mrs. Smith for her willingness to continue 
to serve and her willingness to step forward with this very 
important position. And I want to thank your family because we 
know this is a joint sacrifice, and we thank you very much for 
that.
    We have been debating for 3 weeks on the floor of the 
Senate our national security budget for the Department of 
Defense. The role that we play in development assistance is 
equally important part of our national security budget. So we 
consider the responsibility of this position to be one of the 
highest in our national security interests. So we thank you 
again for stepping forward.
    Yesterday under Chairman Gardner, we had a hearing in the 
East Asia and The Pacific Subcommittee dealing with trade in 
the region, and USAID was present to talk about capacity-
building for trade. If we are going to have successful 
opportunities there, countries need to have the capacity to 
deal with modern trade agreements, and USAID plays a very 
important role there. And I could keep on going on about 
additional areas in which the responsibilities of the agency 
that you are being considered to lead plays.
    Under Administrator Shah, there were new initiatives that 
many of us supported, including the Global Development Lab 
which allowed us to do more with the recognition that our 
resources are limited, by leveraging the help of private 
companies, universities, and NGOs. All of that is important. 
And I know that you understand how critically important it is 
to prioritize. And you and I had conversations about that, and 
you mentioned that in your preliminary statement.
    I want to talk a little bit about human rights. You are not 
going to be surprised to learn that, because I think USAID can 
play a critically important role in advancing human rights, I 
want to talk about three priorities within that.
    First, what efforts do you believe we can make to fight 
corruption? What will be our anticorruption strategies? When we 
look at stability globally, we find the countries that have not 
been able to deal with corruption are going to have a problem. 
Many believe that the Ukraine revolution was not so much about 
Russia's influence but more about people who wanted an honest 
government. We could go on--the Arab Spring was also a 
condemnation of governments that were corrupt and denied their 
people basic human rights.
    The second issue I want you to talk about is the role of 
women. We have also found that the way a country treats its 
women is a good indicator of a nation's strength. And I am 
interested in your commitment and ideas and vision as to how 
USAID can be more effective in advancing the rights of girls 
and women globally as we look for greater stability and more 
reliable strategic partners.
    And the third issue--and I put all three on the table--is 
that World Refugee Day is coming up. We are approaching 60 
million refugees today, one of the highest numbers of refugees 
in modern history. When you look at the number of displaced 
people around the world, we have a crisis, and USAID needs to 
be actively engaged in what we are doing to deal with this 
humanitarian crisis.
    So I would like to hear your vision in regards to how we 
will advance anticorruption measures as part of any program 
within USAID, how you plan to make advancing the rights of 
women and girls the highest priority within your agency, and 
what are we doing to carry out our responsibility in regards to 
the world refugee issue.
    Ms. Smith. Thank you, Senator. And I was thrilled when you 
raised in our meeting and as you raise right now the issue of 
corruption. I could not agree with you more, that it is perhaps 
the greatest enemy to development.
    The flip side of that, of course, is if we can tackle 
corruption in meaningful ways, it frees up significant 
resources for development. This is something that is a priority 
for the Agency. It is something I would like us to build on 
through some terrific things the Agency has done over the 
years.
    The first is, obviously, transparency. Now, that means 
transparency for USAID but also encouraging and calling for 
greater transparency from its partners. As you know, it makes a 
huge difference when citizens can see where resources go. So I 
think that is the first thing.
    I think the second area--and this is where I think we are 
seeing some significant--insufficient but significant--momentum 
around the world is on greater adherence to norms and 
standards. We have been able, through multilateral 
organizations and other means, to work with countries to sign 
up to the international laws, rules, obligations, and treaties 
that require norms and standards on corruption.
    The third--and I mentioned this to you in our meeting--is 
something called the Open Government Partnership, which the 
United States was a founder of with several other countries and 
has now grown to over 65 country members. What is quite 
interesting in that initiative is that it requires governments 
to join in publishing their budgets. Publishing the budget 
makes a huge difference and breaks the ice, if you will. I 
think we can build on that. Some countries have used it more 
effectively than others. A critical piece is that it entails a 
partnership between governments and civil society where civil 
society holds the government accountable for meeting the terms 
of its open government plan.
    We are also working on--and this is something we would like 
to build on--a partnership to deal with illicit finance. There 
are huge losses in capital to the developing world to illicit 
finance. So that is also a priority on the corruption side.
    Let me turn to your two other issues, if I may.
    I think USAID has made the rights and well-being of women 
and girls a priority for many, many years, and that is a 
priority I would very much like to build on, whether it be in 
global health where it is a primary focus, in Feed the Future 
where there has been a particular focus on women farmers, but 
also in the areas of rights, access, and critically important, 
in training. I have traveled around the world and seen a lot of 
USAID missions. I have seen a lot of leaders in civil society 
and government. I have been very proud to see that some of 
those people were trained by USAID. So I think the training 
mission is critical, and support raising this issue at every 
opportunity.
    Finally, USAID is also participating in the First Lady's 
initiative called Let Girls Learn, which is about enabling more 
young women to pursue their secondary education.
    World Refugee Day is daunting. The numbers are staggering. 
USAID works closely with partners in the State Department's 
Bureau of Population, Refugees, and Migration on this issue. It 
is my very strong view that we have to give a lot more 
attention to this so there is a better understanding of the 
consequences of conflict and violations of human rights. So, 
again, this is something that I think is in the Agency's 
humanitarian mission--while my hope is to strengthen the 
Agency's ability to stay a step ahead and respond, it is also 
to give much greater visibility to these issues.
    Senator Cardin. Let me just point out--and I appreciate not 
only your response but the conversations that we have had on 
these subjects. You give me great confidence that these all 
will be highest priorities in your agency.
    We need to be very strict about how we use our aid programs 
in countries that have challenges in dealing with corruption. 
We have got to make sure that the United States aid program is 
not contributing to a corrupt government or corrupt officials. 
And it is critically important that the Administrator send a 
very clear message and have clear directions on how not to 
participate in or fund corruption within governments.
    Ms. Smith. I could not agree with you more, Senator, and if 
confirmed, you will have that.
    Senator Cardin. Thank you.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you for being here today. It is great to have a 
University of Colorado graduate testifying before the panel. So 
welcome.
    And I just wanted to follow up some of the conversations we 
had in my office.
    Yesterday we did have a hearing--Senator Cardin and I--with 
Jason Foley, the Deputy Assistant Administrator for Asia for 
the Agency. It was a good conversation.
    One of the things we talked about is just where priorities 
are for the Asia-Pacific region. If you could just spend a 
little bit of time talking about that, I would appreciate it.
    Ms. Smith. And I think the greater emphasis on Asia has 
been reflected in an increase in resources and personnel. As we 
discussed the other day, I think there are some other things 
that we can explore in Asia. And I am interested in the 
reference to trade capacity-building. That is one of them. I 
think that is something USAID makes huge contributions to 
around the world whether it is at the level of petty trade, 
local trade, national, regional, or in fact global trade.
    What I would like to do, if confirmed--and Senator, I would 
love to work with you and others on this--is do more of in Asia 
and elsewhere of what USAID has done very well in other parts 
of the world, and that is to help work on the constraints to 
private capital flows and increase private capital flows in 
support of development in Asia. That is number one.
    Number two, work with governments again to build on what 
USAID has done to date to build the capacity to run and sustain 
economies that are inclusive and deliver for their citizens. I 
think that there is a lot that we can build out on, some of it 
aided by resources, which are critically important, as you have 
pointed out; some of it by taking the lessons the agency has 
learned in other initiatives in other parts of the world and 
applying them more effectively there.
    So these are all things I think we can do. I am quite 
interested--as I say, I have less experience in Asia than other 
parts of the world--in consulting with you and with others and 
obviously our men and women in the Agency here in Washington, 
particularly those in the field, to see what more can be done.
    Senator Gardner. Thank you.
    Last year, the GAO, the Government Accountability Office, 
produced an assessment of USAID's trade capacity-building 
efforts and concluded--and I will quote the report. The U.S. 
Agency for International Development's 2003 trade capacity-
building strategy does not directly guide TCB activities and 
parts of the strategy no longer reflect the current TCB 
environment.
    If confirmed, do you plan to update the TCB strategy?
    Ms. Smith. Yes. I think that is something we can do, 
Senator--I have worked with USAID on this in my current 
capacity, and I think USAID has learned a great deal. One of 
the things USAID has also done a phenomenal job of over the 
last few years is, again, taking those lessons and then 
figuring out how to apply them. So I think that could be a 
very, very good exercise.
    Senator Gardner. Thank you. And I would love to follow up 
with you on some of the ideas for doing just that.
    Ms. Smith. Great. Thank you.
    Senator Gardner. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Senator, I noticed her staff was somewhat 
alarmed that she would answer a question off the cuff like 
that. So thank you for doing that. [Laughter.]
    There was quite a shock in the back. [Laughter.]
    Senator Menendez.
    Senator Gardner. That is the training of a University of 
Colorado graduate right there. [Laughter.]
    Senator Menendez. Well, welcome. All my questions are off 
the cuff. No.
    First of all, as someone who has been and is a huge 
supporter of USAID, this is an incredibly important nomination. 
I congratulate you on being nominated. And I appreciate having 
listened to you here at the hearing describe your priorities in 
the same way that you did in the private meeting that we had.
    And there are a lot of issues I have, some which I will 
submit for the record. But the one that I want to pursue with 
you is the question of democracy and governance, and following 
on to Senator Cardin's questions of human rights.
    I am concerned that democracy and governance at USAID under 
the President's tenure has been cut by 38 percent, and I think 
there are a lot of critical countries in the Middle East, North 
Africa, Latin America, and Africa as a whole that have great 
needs that are woefully underfunded. And part of our challenge 
is, yes, economic growth and giving people greater 
opportunities, but in part that comes from more transparent 
democratic governance at the end of the day in countries, which 
is a longer term proposition, but nonetheless incredibly 
important to stop, because when in the Middle East you are 
facing a future that is so dismal that you can have your mind 
converted to believe that dying is more glorifying than living, 
that is a real challenge. It is a challenge to our national 
security and interests. It is a challenge in the region. And 
unless we change the dynamics of what is happening in those 
countries over time, we will continuously be in a perpetual 
war. And so I think it is important to be thinking about that 
in the long term, but it has got to start in a more significant 
way. When you cut democracy and governance by 38 percent, it 
does not lead us in the right direction.
    So, one, I would like to get your sense of how you will try 
to stem the tide here. Two, I would like to get a sense from 
you that--and you and I talked about this a little bit, about 
those who would say that stability is more important than 
democracy and governance, that we are willing to look the other 
way on democracy and governance in order to have stability.
    And three, do you believe that if a country resists or 
attempts to thwart our democracy initiatives that we should 
simply end those programs in that country, as we are seeing 
such challenges, for example, in Pakistan, where several 
members of this committee and others of the Senate have written 
about NGOs, the NDI, The Republican Institute, and Save the 
Children, and others having challenges in Pakistan? Give me a 
sense on those issues.
    Ms. Smith. Thank you, Senator, and thank you both for the 
conversation we had the other day and your leadership on these 
issues.
    I agree with you on the importance of resources, and I 
believe you are aware that the President's request includes an 
increase in resources for democracy and governance.
    But I think there are several other things we need to do.
    One is press others to also increase their resources. I 
think worldwide, if you look at investments in democracy, 
governance, and human rights, they are far below where they 
should be, and I think we are in agreement that this is 
essentially the backbone that is needed to ensure that the 
gains of development are sustained.
    I would also like to look at the potential impact of having 
additional personnel on the ground, particularly democracy and 
governance officers, who often, with technical assistance--but 
not necessarily large quantities of assistance--can play a 
hugely important role in training and using their convening 
power and other tools to build capacity. I think USAID's record 
on training at the institutional level for civil society and 
NGOs is something we can build out. I know the Agency is 
looking at how to make greater use of regional platforms where 
more people and more organizations can be trained at once and 
where also, and importantly, networks can be built.
    I also believe, sir, that a government that is credible in 
the eyes of its citizens is a government that delivers 
transparently and in ways that are meaningful and impact the 
lives of those citizens. So in the areas where USAID has a very 
big presence and budget in health and in food security, the 
Agency has worked on--and I think we can expand--also looking 
at governance in those sectors. Is it transparent? Are the 
budgets transparent? Are citizens able to avail themselves of 
the equivalent of a feedback loop to ensure that, again, those 
services are delivered but in a way that is effective and 
transparent?
    As I mentioned in response to Senator Cardin the Open 
Government Partnership, I have been quite impressed by what 
that has provided in terms of triggering a worldwide debate on 
what open governance means and what the obligations of 
governments are, while also exercising the muscles of some 
governments in transition, with their civil societies to see 
what it is actually like to both cooperate and have civil 
society hold governments accountable.
    I believe as well that USAID is in a very good position, 
along with the State Department, to play the role of broker or 
facilitator in dialogue between governments and civil society.
    I appreciate that you also made, sir, the point about this 
being a long-term proposition. I think the importance of our 
investing as a nation through USAID and by any other means in 
institution-building is ultimately the key because it is when 
we have got strong, effective, and transparent institutions 
that I think we have the greatest assurance.
    Senator Menendez. Let me make one observation before my 
time runs out, as well as one final question.
    Ms. Smith. Yes.
    Senator Menendez. And your answer, which I appreciate, a 
lot of it was focused on governance, and I agree that is an 
important issue. But I also think we have to decide whether 
USAID is going to play a role in democracy-building or not. And 
if it is, then it needs to be robust, and if it is not, then we 
need to think about how we move those resources to an entity 
that would, which brings me to my final question.
    I am pleased to see that the administration has its 
traditional request for Cuba democracy programs at $20 million. 
And I have clearly a very different view of United States-Cuba 
policy than the administration. But the one thing, I would 
think, that we can all come together on are programs that 
ultimately we pursue worldwide in other countries that are 
undemocratic, and that we do not allow the entities in those 
countries, whether they are autocratic dictatorships or other 
authoritarian regimes, to just stop our programs at the end of 
the day because they do not like it, otherwise we would have 
given up a long time ago and would not have been successful in 
Eastern Europe at the time of Vaclav Havel, Lech Walesa, and so 
many others.
    So the question is, as it relates to Cuba democracy 
programs, can you make a commitment that you will prioritize 
programs that strengthen independent civil society, defend 
human rights, and expand democratic space and increased access 
to information inside of Cuba?
    Ms. Smith. Senator, yes. Let me address a couple of things 
you have said.
    First, I believe that the U.S. Agency for International 
Development is and must be an agency that is about supporting 
democratic institutions, expanding democracy and democratic 
practices. So I think that is and must remain a priority.
    With respect to Cuba, my understanding is USAID is 
continuing programs in democracy, governance, human rights, and 
the free flow of information, and intends to do so. And that is 
certainly my intention if confirmed.
    I also believe you make a very important point with respect 
to the situations where we find that governments reject, close 
space, or take other measures that constrain the evolution of 
democracy. I think we need to respond in those cases. I think 
we may respond differently in different cases and must do what 
is effective. In some cases, we may not be supporting an actual 
government. We may be working primarily with local civil 
society or other groups. But I do think it is something we must 
respond to, and I will, if confirmed.
    Thank you.
    Senator Menendez. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Corker.
    And welcome, Ms. Smith.
    Ms. Smith. Thank you.
    Senator Coons. I very much look forward to your 
confirmation and to continuing to work with you in what I hope 
will be your new role in leadership of USAID.
    And I appreciate and just want to join with the chairman in 
questioning about food aid reform and then talk a little bit 
more about effectiveness, monitoring, and economic development, 
if I could.
    What role do you see for local and regional procurement and 
for readjusting some of the commodity and cargo preferences in 
the path forward toward a reasonable and balanced reform to our 
food aid program?
    Ms. Smith. Senator, again, as you know, the President in 
his budget made a proposal for food aid reform. So I certainly 
believe that this is something we need to pursue.
    I believe there are ways to do it. I think there is 
probably some sort of equation that will be the ultimate 
solution. I am a little bit hesitant to get exactly into the 
particulars because in my current role I have not been directly 
consulting with all the parties.
    But I do think we can and should find a balance that does a 
number of things: enables the Agency to respond more quickly 
and meet the needs of more people while maintaining those very 
important, vital parts of a program that have served us well 
over many years and also meet the needs and concerns of a broad 
range of constituencies. I think it is entirely possible. It is 
something I would make a priority, if confirmed.
    Senator Coons. Great. Well, I look forward to working with 
you, the chairman, and other members on achieving that right 
balance between a lot a different interests and concerns.
    There is a number of initiatives that you may well get to 
carry forward that are, in no small part, focused on economic 
development in a part of the world we have both spent a fair 
amount of time in, whether Power Africa, Trade Africa, Feed the 
Future, Global Health Initiative. I have a concern about Power 
Africa that it has largely been funded out of democracy and 
governance programming funds, and my hope is that we will get 
an authorization and then dedicated sources of funding for the 
long term. But speak to those initiatives, if you would, in 
terms of which you think has been most successful in the last 5 
years and which you would prioritize your focus on, if 
confirmed as Administrator, to try and advance both economic 
development and human development.
    Ms. Smith. Thank you, Senator, and thank you for your 
engagement on Africa, but also your engagement on development.
    I believe Feed the Future is one of the most successful 
initiatives we have seen in a long time. And I would point out 
that it was originally built as an initiative that started in 
Africa and has now expanded. There are Feed the Future 
countries outside of Africa that follow the same model, which 
include countries having a comprehensive plan and their own 
investing in that plan. I think this is something we can build 
on. I think it is something that has influenced the rest of the 
world. I think we have put food security and agricultural 
development back on the world's map, both through Feed the 
Future and support for that initiative. So I think anything we 
can do to ensure that it not only achieves as much impact as 
possible over the next 18 months but also well beyond that. I 
sincerely hope that Feed the Future is an initiative that will 
be continued, and I think it is worthy of it.
    Power Africa--and I would be delighted, if confirmed, to 
work with you on any resource issues--I think is something that 
has shown us that the development model that USAID and the 
other agencies and departments that are part of that 
initiative, because there are 12 all together, have figured 
out. I think there has been a search for the silver bullet on 
energy or infrastructure. I do not believe there is one, but I 
do think that we have come up with something that allows us to 
identify viable projects, interested investors, and 
importantly, break down the constraints and build the capacity 
that is necessary to get a transaction done that not only 
yields greater access to electricity but exercises the muscles 
of trade and investment and also demonstrates success. Because, 
as you know very well, in Africa, risk perception is a very 
powerful thing, and I think over time we are reducing it.
    I think it is also important that Power Africa is not 
overwhelmingly assistance-driven. The team has USAID at the 
lead, but again, all of those agencies and departments have 
done a phenomenal job of leveraging private sector capital and 
working with other countries. Sweden has put $1 billion behind 
this. The World Bank is engaged with us. So, again, using our 
leadership and a good idea to get others involved has been key.
    I think Global Health, if I may, Senator, is and will 
remain a top priority I certainly hope for this administration, 
as it has for past administrations.
    Senator Coons. Thank you. Across those few, if I might, I 
am pleased to hear that you think Feed the Future is scalable--
--
    Ms. Smith. I do.
    Senator Coons [continuing]. And can expand just its early 
success in Africa and is worth working together to sustain and 
grow.
    Second, I hope within Global Health that the development of 
an HIV vaccine will continue to be an area of priority and 
focus. Although it has a long trajectory, it would have an 
enormous cumulative impact.
    I also just wanted to recognize that the value of 
partnering with other development entities from around the 
world, with the private sector, as demonstrated in your 
comments, I see real value in. The Millennium Challenge 
Corporation I think in a number of countries where I have had 
the opportunity to visit with its sites and when I have had the 
chance to meet with their leadership has turned me from a 
skeptic to a real advocate because I think that long-term model 
of having metrics and accountability and measurable results and 
of doing development in partnership with other governments in a 
way that builds their capacity I think is really promising.
    Let me, as a last question, just mention the Paul Simon 
Water for the World Act. I joined a number of my colleagues, 
Chairman Corker and Senator Durbin, Flake as a cosponsor. I 
think access to clean water and sanitation is one of those sort 
of foundational concerns like access to electricity. Just tell 
me, if you would, how USAID will seek to improve access to 
clean drinking water and sanitation in the developing world 
under your tenure if you become the Administrator.
    Ms. Smith. Senator, let me just echo your endorsement of 
MCC. I have enjoyed working with MCC and look forward to 
continuing to do so in a new capacity, if I am confirmed.
    On the issue of water and sanitation, that is really one of 
USAID's strengths, whether it is in the development field or if 
you look at emergency responses around the world. The Agency is 
terrific at moving quickly and also on a long-term 
developmental footing.
    My understanding is the Agency has been working on a much 
broader strategy and identified priority countries where our 
experts believe that USAID can have the greatest impact. It is 
something I am very eager to dive into further, including in 
support of the act. So I think it is something that I would 
like to come back to you on. I cannot claim to have exhaustive 
knowledge of it yet, but as I say, it is something the agency 
does very well. And my understanding is that they have been 
working very hard on plans to look at how it can be expanded 
but also how they can prioritize, again, in key countries where 
they can achieve the greatest impact.
    Senator Coons. Well, if I could simply, while Senator 
Perdue settles in, let me just say in closing that on my trip 
to Liberia last December, I was really impressed with the DART 
team and with how USAID was not just delivering disaster 
relief, humanitarian relief, but helping coordinate across 
international and private sector and volunteer organizations 
and how the incident management system that really was, in 
large part, deployed through the DART team made a lasting and 
compounding difference in how a complex, broad humanitarian 
crisis was being dealt with. And I just wanted to commend the 
great work that USAID has done and I believe will continue to 
do under your leadership in responding to complex humanitarian 
crises.
    Ms. Smith. Thank you for that, Senator.
    Senator Coons. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    Ms. Smith, good to see you again.
    Ms. Smith. Good to see you.
    Senator Perdue. Well, thank you very much for your career 
service. And I find this role of USAID Administrator, as we 
talked, to be tremendously important. And I was very impressed 
with our conversation. I appreciate your forthrightness and 
candor in our brief time together. I look forward to 
maintaining that open dialogue. I think there is nothing better 
in trying to establish our foreign policy around the world than 
what we do with our philanthropy, and I know you share that as 
well. You said that in our meeting.
    In our fiscal environment, obviously, we want to know that 
every dollar is--we are getting the most productive use out of 
that that we can. I know you share that as well.
    Assuming you are confirmed, though, I would love to have 
you talk about it--and I am sorry I missed earlier testimony, 
but I would love for you to talk about your priorities in the 
next 18 months, if confirmed, and talk about are there private 
priority areas that you would see yourself focusing on in 
particularly the first year.
    Ms. Smith. Thank you, Senator. Thanks again for our 
meeting.
    Yes. Let me briefly go through priorities.
    The first is achieving maximum impact in the areas where I 
think we can achieve the greatest scale. And we have talked a 
bit about some of those, Power Africa, Feed the Future, and 
Global Health.
    The second is a set of urgent priorities, including 
expanding the agency's work on democracy, human rights, and 
governance, obviously a critical strategy in Central America, 
and for transition in Afghanistan.
    The third--and Senator Coons just referred to this. I 
believe that USAID is the best in the world in responding to 
crises anywhere. They are flexible. They are adaptive. They are 
creative. I think we need to make sure that the teams are able 
to keep one step ahead in a world where we are unfortunately 
seeing too many crises.
    The last, but I think in many ways the most important and 
something you and I talked about, is the management operations 
of the agency. We put huge expectations on the men and women 
who serve this agency to operate and manage huge amounts of 
money often in very complex environments. They do an excellent 
job. I think they are committed to being fully responsible with 
taxpayer dollars. I think you will find with me that I will be 
totally and utterly frank with you about what goes well and 
what does not, but as I said to you in our private meeting, I 
will also come to you and ask for help when we need to fix 
things that may not work so well.
    So on the operations and management of the Agency, I think 
USAID does a terrific job of doing assessments on the front 
end, looking at risk mitigation, evaluation and monitoring, and 
responding to oversight. I would like to work with the team--
and it is a very dedicated team--to get out in front and ahead 
of some of these things to see if we can identify problems and 
challenges earlier, but also again to be able to come to you 
and other members of this committee with some options we may 
develop, and ask for your help and partnership in seeing if we 
can work together to make this agency as effective, as 
responsive, as responsible and agile as it needs to be in the 
world we live in.
    Senator Perdue. I look forward to that.
    Another thing I want to follow up on is to have you speak 
to us a little bit about how do we get other partner nations 
around the world to help us in this role. I know they do now, 
but there are more needs than we can meet. And as one country, 
we cannot meet them all. This is not a budget conversation. It 
is really more of a conversation philosophically. From your 
role as the leading, I guess, contributor in this effort around 
the world, how would you use this position to help influence 
other countries to step up their support of philanthropy the 
way we are?
    Ms. Smith. First of all, I am not shy about asking for 
money.
    But, Senator, I think there are a couple things. And one 
great example of this has been the work on food security and 
agriculture where agencies and departments, including USAID, 
including the State Department--all of us rallied together to 
look at what the world was investing in agriculture, looking at 
what we could do, and then literally going country to country 
and saying here is what we expect you to put on the table. And 
we challenged other countries to triple their investments. We 
were polite, we were evidence-based, and we were relentless. 
Ultimately we mobilized $33 billion.
    Now, I think we can do that as a matter of practice. I 
think part of it is, again, challenging countries, looking at 
the evidence of where the investments are lacking, figuring out 
what is appropriate, and pushing politely until we get there. I 
think our convening power helps us enormously as does our 
success. Again, with Power Africa, the fact that Sweden 
announced last summer $1 billion in support of this enterprise 
is because it is a good idea and it is working. So I think the 
power of our example works.
    The last thing I would like to mention, Senator--and I 
think this is a trend we should build on--is that in a number 
of countries, we are seeing the important recognition by 
governments that something called domestic resource 
mobilization is key, that it is critical that they invest more 
in health, in education, in agriculture, and rely more on their 
own budgets. Now, some of that means that they need assistance 
in things like how to manage an effective tax administration. I 
think we need to capitalize on this trend, build on it where we 
have got countries that are stepping up and being real leaders 
on it, and then using that to challenge other countries to meet 
us at least part way. So I think that is another way that we 
can mobilize additional resources.
    Senator Perdue. Thank you.
    If confirmed as Administrator, what would you do to ensure 
the priorities identified at the mission level are incorporated 
into final budget submissions to Congress and that presidential 
initiatives, while important, do not distort necessarily--I 
know they are important and they need to be taken into 
consideration, but they do not distort the type of assistance 
that you as the Administrator determine to be of utmost 
importance. I guess what I am looking for is the priorities in 
making sure that we all agree on those priorities with regard 
to meeting the needs that USAID is charged to do.
    Ms. Smith. Thank you for that question. And, Senator, I 
will not fool you. This is not easy. There are huge demands. 
There are huge opportunities, and it always is ultimately a 
question of tradeoffs and prioritization.
    So I think the first thing is to look carefully at what the 
Agency's priorities are, to lean in the direction of those 
places we are getting the greatest impact and meeting the 
greatest need. Again, that is not easy because it means letting 
some things go. I am prepared to do that if that is what, 
again, the people in the Agency and others agree with, but I 
think that is something we have to look at.
    The other is I think listening to the field. We send teams 
out in the field to run USAID missions. They have got eyes and 
ears on the ground. They have got a sense and the experience to 
know what is working and what is not and where we can have real 
impact. So I think factoring that in at the end of the day is 
important.
    And finally, I think we have got to continue to leverage 
and draw in other resources because, as you said yourself--and 
I strongly agree--we cannot do everything. I think something we 
can do more of is mobilize, quite frankly, other people's 
resources to match our own.
    Senator Perdue. Well, thank you for your testimony.
    Mr. Chairman, thank you.
    Ms. Smith. Thank you, Senator.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome. I look forward to working with you in your new 
position. You have done very well today. Thank you for taking 
the time to meet with all of us.
    I am glad to hear in response to a question from Senator 
Perdue, you are not shy about asking for money because I wanted 
to ask you a question about resources.
    Interestingly, you skirted the issue a little bit in 
response to a question from Senator Menendez. You said 
resources are important, but let me tell you all the ways that 
we can get around needing more resources. And it speaks to a 
fear that I at least have about the aid community.
    I mean, the Defense Department is never shy about coming up 
to Capitol Hill and telling us when they do not have the 
resources to meet their operational demands, and they tell us 
routinely the risk at which we are putting the Nation if we do 
not fund the Department of Defense's budget to the amount that 
meets their defined objectives overseas.
    I do not always feel the same way about the aid community, 
and often it is just a question of how we allocate scarce 
resources and how we draw on other partners. And all of that is 
important.
    But does USAID have the resources today to meet its 
operational demands? How much of this can continue to be just 
robbing Peter to pay Paul? Do we not have to have a pretty 
fundamental conversation about the growing number of crises 
across the world and the fact that today we are spending 1.1 
percent of our GDP on foreign aid, when back in the 1950s we 
were spending 3 percent of our GDP on foreign aid? At some 
point we have got to reckon with that number. Right?
    Ms. Smith. Senator, I welcome your comments, and I think 
absolutely that we do. I think, if confirmed, I will also 
function as a member of the administration that is responsible 
for putting together an entire budget and take those factors 
into account.
    But I think there is something key that you are getting to. 
I think we are in a position now to make the case certainly to 
the American people. I have been encouraged by the 
conversations I have had with members of this committee that 
foreign aid is a worthy investment, that we get a return, that 
it impacts our influence and our standing around the world, and 
that we can prevent more crises than those to which we have to 
respond. So I think it would be a wonderful thing to start 
making the case that this a worthy investment and one that we 
should consider over time increasing. I would be delighted to 
work with you on that.
    I do also want to say--and I certainly was not attempting 
to skirt something, but I also believe that assistance is one 
of the tools we have, but it is not the only one. The Agency 
has done a phenomenal job at a time when ideally it would have 
a much bigger budget, of figuring out, again, how do you 
mobilize other people's resources, how do you work with the NGO 
community, which has made huge commitments of its own, and how 
do we, again, leverage what is now billions of dollars in 
private capital. So I think regardless of where the budget is, 
that is something that we have got to focus on.
    You did mention the word ``operational,'' so I just want to 
make one quick plug of something that, if confirmed, I hope 
that we can discuss, and that is USAID's operating budget, 
which is also one of the key elements of its ability to 
function around the world and is absolutely critical. I would 
want to rely more fulsomely on the experts in the Agency to 
come back to you on that. But that is one of the, if you will, 
force multipliers to the effectiveness of the Agency over time.
    Senator Murphy. One of the issues that we talked about, 
which I would love to hear your thoughts on in open committee, 
is the issue of flexibility. One of the things that I routinely 
hear from mid-level and upper-level operators in the field is 
that partially by internal processes, partially by 
congressionally directed earmarks, that we compartmentalize 
funding on a geographical basis and then on an operational 
basis, a categorical basis such that it is hard to move money 
as fast as the crises move our attention.
    Are there things that can be done internally? Are there 
things that we need to work with you on to make sure that you 
have the flexibility to move money as quickly as events on the 
ground demand it?
    Ms. Smith. Senator, that is an issue I would love to come 
back to you on, if confirmed. I think it is vital.
    USAID has a lot of people who are masters of figuring out 
how you move between the various pieces to move money as 
quickly as possible, but also respond to requirements that the 
Agency is obligated to and wishes to respond to, whether they 
come from the legislative or executive branch. I think if we 
could talk about how to provide the Agency with greater 
flexibility, that would be of enormous value. I think part of 
that equation is also working with you on how USAID can ensure 
that it will be fully responsible with that greater 
flexibility.
    I have known this agency for a long time. I have watched it 
go through a lot of permutations. I think it is better 
positioned today than at any time I have seen in 20 years to 
assume the responsibility for and act on that greater 
flexibility. And if that is a conversation that we could have, 
if I am confirmed, I would be delighted.
    Senator Murphy. And then lastly, I just wanted to get your 
thoughts about the way in which USAID can be built more tightly 
into the overall national security infrastructure. There is a 
really fascinating report that one of your former colleagues, 
Gen. Jim Jones, headed. It had about a half a dozen former 
generals and admirals, as well as a number of policy-thinkers, 
talking about the better ways to integrate both State 
Department resources and USAID resources into the strategic 
commands to make sure that we have a more coherent conversation 
happening out in the field so that we can have a coordinated 
response to crises.
    I think about the movement of an organization like al-
Shabaab out of Somalia into Kenya. If we had been able to all 
think about the ways ahead of time to try to buttress those 
sections of Kenya which were vulnerable to the movement of al 
Shabaab, we might have been able to prevent a little bit more 
of the seepage that ended up happening.
    Are there some opportunities to try to connect strategic 
commands and USAID? They are some of your biggest boosters, 
frankly, and there seems to be a need to maybe have a little 
bit more coherence in the field.
    Ms. Smith. Well, I think that is a very good point. And the 
Department of Defense has been a big champion of USAID largely 
for the reasons you suggest. USAID is the agency best 
positioned to pursue the prevention that is needed so we have 
fewer crises.
    I think USAID and the Department of Defense have a very 
good relationship. It is one that has expanded including 
because of joint responses in humanitarian crises. I know that 
on the Sahel and other parts of the world, the two agencies 
have together looked at roles and responsibilities but also how 
to think about what might be done on the side of prevention. 
And I think that is something I am very interested in pursuing 
further.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Can you give us the 1 minute on geothermal in Ethiopia?
    Ms. Smith. Sure. Thank you, Senator.
    Geothermal in Ethiopia has a huge potential. All along the 
Rift Valley, as you and I discussed, there is the potential to 
provide electricity for a huge chunk of the continent. It is 
not easy to exploit, but we are finding that there is increased 
interest. Power Africa is behind transactions in Kenya and in 
Ethiopia that we hope to see significant progress on, including 
in the coming weeks. I think it is something that could be a 
profound game-changer for the region again.
    Senator Markey. We were told by the President of Liberia, a 
country of 6.5 million people, that her whole country only has 
40 megawatts of electricity.
    Ms. Smith. Exactly.
    Senator Markey. What can one geothermal facility in 
Ethiopia do?
    Ms. Smith. You could go from 500 to 1,000 megawatts.
    Senator Markey. A thousand megawatts.
    Ms. Smith. Potentially. There are lots of megawatts in that 
geothermal rift there along the valley, sir.
    Senator Markey. Right. So ultimately we are looking at 
something that is potentially 25 times bigger--one plant, one 
facility--than all of the electricity in Liberia today.
    Ms. Smith. But we are looking at some serious impacts. And 
again, I think we have got to be mindful of the challenges in 
exploitation of geothermal. But I think we are seeing 
increasing evidence of its potential, of the interest by 
investors, and of the viability of some of these projects. We 
still have to focus on the Liberias that do not have that 
potential and have the kind of acute shortages you talk about, 
particularly at a time when, after having survived decades of 
war and now an Ebola epidemic, they are able, fortunately, to 
focus again with our Power Africa team on turning the lights on 
there.
    Senator Markey. The numbers are just so exponentially 
larger that they just match up with the cell phone wireless 
revolution in Africa. I mean, it is almost like a perfect 
analogy of how we are not talking about a doubling or a 
tripling. We are talking about something with one facility in 
Ethiopia that is 50 times bigger than everything that is going 
on in Liberia. So that is something that we just, again, 
continually have to focus on and understand that it is 
transformational. When a place has all the telecommunications 
they need and all of the electricity they need, capitalism, 
commercial activity is going to flourish and similarly the 
education of the kids, the health of the kids, all the way down 
the line.
    Let us talk about health systems post-Liberia. What can 
USAID do to make sure that there is a better infrastructure in 
place on an ongoing basis in these countries so that they can 
be the front line and effective in making sure that these 
diseases just do not spike out of control?
    Ms. Smith. That is a really important question, Senator, 
and thank you for asking it. Senator Coons mentioned the DART 
team deployed, and even from the initial deployment of that 
disaster assistance response team, looking at the health 
systems has been a priority, building on some significant 
progress made over the years, but obviously insufficient 
progress given the impact that the Ebola epidemic has had. I 
think there are several things that can be done.
    One is transferring some of the capabilities that have been 
developed in Liberia out of misfortune to other places and 
making sure those are retained. There are now people who are 
trained as lab technicians to track the data on an epidemic, to 
do some of the treatment and prevention.
    The second is part of something called the Global Health 
Security Agenda, which was launched by the President with an 
eye to doing two things, both getting countries to adhere to 
the norms and standards that are required to manage global 
health threats, but also and importantly build the capacity of 
countries like Liberia to be able to prevent, detect, and 
respond to global health threats.
    Lastly, I think for USAID, for the Office of the Global 
AIDS Coordinator for the CDC, and for all the U.S. Government 
agencies that work in health, there have been some important 
lessons. I think about the importance of health system 
strengthening. This has been a priority since the beginning of 
the administration. I will admit it has not been the easiest 
thing to market. Health system strengthening really did not 
capture a lot of imagination I think until we saw the Ebola 
epidemic. But the teams are working now on how we can do as 
much as possible----
    Senator Markey. Can you take tuberculosis as an example----
    Ms. Smith. Yes.
    Senator Markey [continuing]. And talk about what USAID can 
do in terms of detection and prevention of tuberculosis in the 
countries that you have an ability to influence? Can you talk 
about that a little bit?
    Ms. Smith. I think many of these are the same systems. And 
what is needed and I think what USAID does very well across the 
board on health is how do you have the education in place, 
train the people who you need on the ground, provide the 
education, and then put in the extra training and capabilities 
that are needed for diagnostics, for treatment, in TB for 
sustaining treatment because one of the biggest challenges 
there is that if people fall off their treatment, you have got 
a recurrence or even worse. So I think, again, it all comes 
back to health systems, to training, and to putting in place 
those things that enable local communities to play a central 
role.
    And one last thing on tuberculosis, if I may. It also means 
mobilizing other countries to do more because if you look at 
where the evidence of tuberculosis is today, much of it is in 
the world's poorest countries. A great deal of it is in the 
BRICS. And so I think the other piece is going back and 
pressing other countries to do more.
    Senator Markey. And finally, USAID has partnered with MIT 
in working on a comprehensive initiative on technology 
evaluation in order to ensure that we are using the smartest 
technologies effectively in order to aid in development in 
these countries. Can you talk a little bit about that and how 
we can continue to advance that effort to maximize working 
smarter, not harder to extract all of the economic 
opportunities in these countries?
    Ms. Smith. Senator, I am not familiar with that particular 
project. I am familiar with the extraordinary work that has 
been done by--if I am confirmed--my predecessor.
    Senator Markey. You have my vote.
    Ms. Smith. Thank you, sir.
    Dr. Shah is a real expert in science and technology and did 
a great deal to create, as you know, the Global Development 
Lab.
    I think the partnerships with universities are key. Those 
are already yielding significant results. I think how to use 
data more effectively both in running the organization but also 
in terms of tracking solutions and what is working and what is 
not.
    The Grand Challenges that USAID has run have been some of 
their greatest successes. My personal favorite is one that was 
to develop a set of protective gear for people who are working 
in environments like Ebola epidemics where they can work for 
longer periods than 45 minutes. It was Johns Hopkins and a 
wedding dressmaker in Maryland that came up with the solution 
on that.
    I think there is enormous potential out of what has been 
done to bring science, technology, and innovation into USAID. I 
think the challenge is to look at how we can get some of these 
things to scale.
    Senator Markey. I think your whole life has prepared you to 
sit in that chair, and I think our country and the world is 
lucky to have you being willing to take on this job. So thank 
you so much.
    Ms. Smith. Thank you, Senator.
    The Chairman. I am sure that Senator Markey knows that his 
whole life has prepared him to sit in his chair. [Laughter.]
    So with that, Senator Cardin I know has some additional 
questions.
    Senator Cardin. If I could return to a point I raised 
earlier from the hearing we had yesterday in the East Asia and 
The Pacific Committee dealing with capacity-building and using 
USAID programs as they are related to capacity-building for 
trade, I want to talk a little bit about labor capacity issues 
and how you see the tools you have available being used to 
maintain and expand those opportunities.
    If we move forward--and I hope we do--with the agreement 
with the Trans-Pacific Partnership, there are several countries 
there that have significant challenges as relating to their 
capacity to comply with a quality trade agreement such as TPP, 
particularly on labor issues. How do you see your 
aggressiveness in using the labor capacity tools that are 
available to help us meet these needs?
    Ms. Smith. Senator, this is something I have talked to 
USAID about. USAID has a long history of working with labor 
organizations to build up to both norms and standards and build 
capacity. I think there is every intention of continuing those 
programs. If it is possible to expand those, I think that is 
worth looking at. But this is something I think the Agency has 
got a long track record of working on around the world and in 
Asia, and I certainly think in the Asia-Pacific that is a place 
where, if confirmed, we would certainly want to continue to do 
that.
    I would be happy to talk to you further and get your 
thoughts and more details on any specific ideas you may have.
    Senator Cardin. Well, I appreciate your commitment on this. 
I think it is going to require the agency's initiatives in some 
of these areas, and I look forward to working with you in that 
regard.
    Ms. Smith. That would be great.
    Senator Cardin. There has been some conversation about the 
use of the Global Development Lab. I mentioned it and Senator 
Coons mentioned it. Do you have thoughts as to how that program 
could be strengthened so that we can leverage the program for 
stronger involvement from the private sector in helping achieve 
the missions of USAID?
    Ms. Smith. Sure. I think the partnerships that the Global 
Development Lab has already built are part of what is going to 
anchor it and allow it to succeed. One of those is, again, with 
universities around the country, and also with the private 
sector. I think there is some real potential in looking at how 
we can take some of these innovations to scale. There is the 
capacity within USAID to provide some initial small capital to 
entrepreneurs, for example, or to ideas that seem to be viable 
enough to work. I think part of the challenge will be then 
getting with the private sector to figure out how we can take 
some of these things to market. And that is something I would 
very much like to do. I will rely on its experts, if confirmed, 
to determine what the best examples might be.
    But I genuinely believe that this kind of lab, that kind of 
innovation, those kind of entrepreneurs or the ideas that have 
come out of grand challenges--that if we use our convening 
power, the relationships that the Global Development Lab 
already has to work with the private sector to take these 
solutions to market--we will not only innovate, but do 
something the lab was built for and that is to get to scale.
    Senator Cardin. I think it is excellent. I would also urge 
you to put a bigger spotlight on what you are doing. I think 
this is a story that is not well understood yet, particularly 
in our country. So I think you should. This is a success, and 
you should really put a spotlight on it.
    One last point. Senator Corker and I have had many 
conversations about moving the President's nominees through our 
committee in an efficient way. And today's hearing is an 
indication of us moving forward on nominations.
    It is my understanding that there are several senior 
positions in USAID that require Senate confirmations where 
nominations have not been yet submitted to the United States 
Senate, including the top position in Africa and some others. 
If you are confirmed, can we have your commitment that you will 
do everything you can to make sure that we get these 
appointments in a timely way? It is frustrating for many of us 
who are pushing to say we need to confirm positions when the 
administration has not submitted their nominees.
    Ms. Smith. Yes. I will happily make you that commitment, 
sir.
    Senator Cardin. Thank you.
    The Chairman. I am glad to see that he is pushing in two 
directions, not just one. [Laughter.]
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman. I do have one last 
question.
    Ms. Smith, with your operational background, I cannot 
resist this and I ran out of time earlier. But Senator Murphy 
reminded me just how important it is that we set priorities. We 
mentioned that we are only spending about 1 percent of our 
budget as opposed to maybe 3 percent in the past. I want to 
look at that. I am not knowledgeable about the 3 percent.
    But I do look at the last 6 years where we have spent $21 
trillion in our Government. We borrowed $8 trillion of that. 
That means of the $20 billion, which I believe is in 2015's 
budget for USAID--and put that in perspective. The State 
Department is $51 billion. So this is $20 billion of the $51 
million. That means that we borrowed $8 billion in order to 
meet needs around the world.
    And this goes back to my question about how do we get other 
players to step up and how can we leverage what we are doing. 
But the reality is right now we are borrowing 40 percent of 
what we are using to support philanthropy around the world. I 
do not know any other country in history that has ever done 
that.
    And so the question I have that comes behind that is, 
operationally how do you look at the priorities? Right now, 
five efforts, as I understand it--and I would love to be 
corrected, but I think this is right. Five programs represent 
90 percent of that $20 billion. Health, humanitarian needs--
health is the third. Humanitarian needs is about 20 percent. 
Democracy and governance is 13 percent. So those three things 
are about two-thirds of the money we are spending, or about $13 
trillion. Economic growth and agriculture are only about 20 
percent, a little more than 20, about 23 percent.
    So the question is--you do not have to answer today because 
you have not had a chance to get into the budget and all that. 
But one of the things I would look forward to is an active 
conversation about what you see the allocation needing to be 
relative to the needs that are out there, the objectives and 
the mission of USAID, given that 40 percent of what we are 
funding is borrowed. I mean, that puts a perspective on it I 
think that makes--it just puts every dollar in play relative to 
how important it is that we make every dollar count. So would 
you respond to that please?
    Ms. Smith. I will. I also took note of your saying that you 
would be happy to talk to me about this later when I have had a 
chance to review the budget in great detail.
    I think this issue of prioritization is key. And again, I 
do not want to understate how difficult it is. USAID has a lot 
of important initiatives and programs.
    What I would really like to do is sit down with the men and 
women who run these programs both here in Washington and in the 
field, get their honest assessment of what they think is the 
most effective, what they think should be prioritized, how they 
think about that, be able to work that through with the 
agencies, with others in administration who have views on this, 
and come back to you and talk it through.
    Senator Perdue. That is acceptable. Thank you.
    The Chairman. Thank you.
    If there are no other questions--do you have any, Senator 
Markey? You are good? I just have a couple and we will close.
    Ms. Smith. Sure.
    The Chairman. Again, thank you for your testimony and your 
willingness to serve in this capacity.
    I was interested in your exchange with Senator Markey and 
just the order of magnitude change that can take place when we 
have power production of that magnitude in a country with so 
little. And we have so many countries in Africa that have that 
kind of situation. Sometimes administrations on both sides of 
the aisle try to tout the amount of output that is created, but 
as you know--and we talked about this in the office--what is 
important is to ensure you have a distribution system, and you 
have that power, and you have a cost recovery mechanism or a 
tariff system in place so that it can be sustained for the long 
haul and will be there. So many of us have seen--I know you 
have seen--projects that were completed but they serve no 
purpose.
    I wonder if you could just talk a little bit about that?
    Ms. Smith. Yes. I think there a couple of issues there, 
Senator. And thank you for the question.
    One of the things that Power Africa also focuses on is some 
of the policy issues, which are key to sustainability. So I 
think that is vital.
    I also think that something, if confirmed, we can do more 
of and a better job of is looking at that sustainability up 
front and making sure that the policies are in place, figuring 
out things like recurrent expenditures that sometimes are not 
factored in are factored in so that we know that we are not 
investing in something that 5, 10, 15 years later is going to 
prove to be dormant or ineffective. So I think that is 
critically important. It is something that is a priority of 
mine.
    With respect to Power Africa in particular, one of the 
great things about having not only USAID but all of these other 
departments and agencies involved is that it is a real 
opportunity to get to the policy issues that are necessary 
alongside those very exciting investments to make sure that 
these are sustainable over time, and that the investments 
include all of the other cost recovery and pieces that you 
mentioned.
    The Chairman. While you were at the NSC, you praised the 
administration's transparency efforts. And we noticed that with 
the foreign assistance website, we still are not getting full 
reporting from all Federal agencies relative to that. And while 
I am sure our friends in China have access to that data, I 
wonder if you would----
    [Laughter.]
    The Chairman [continuing]. If you would commit to going 
ahead and bringing that up to a full-scale basis and make sure 
that all of that reporting is taking place?
    Ms. Smith. Sure. Senator, I will continue to work on that. 
And I will confess to you that several colleagues and I made a 
priority of really looking at foreign aid transparency. I think 
in all honesty, we were not fully aware of what we were getting 
into when you look at the complexity of the full range of 
departments and agencies that provide foreign aid and their 
different systems and how one translates all of that 
information. That is a work in progress. It is something I will 
certainly lend my support to and continue to work on. And I 
appreciate your support for it because I think it is absolutely 
vital.
    The Chairman. Well, thank you for being here today. I 
appreciate the time you took with committee members in advance.
    Without objection, if the record could remain open until 
close of business Friday and if you would respond to those 
questions, we would appreciate it.
    Ms. Smith. Yes, sir.
    The Chairman. And without further ado, the meeting is 
adjourned.
    [Whereupon, at 3:23 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


 Responses of Gayle Smith, Nominated to be Administrator of the United 
States Agency for International Development, to Questions from Members 
                            of the Committee

               administrator-designate smith's responses 
                    to questions from senator corker
Water, sanitation, and hygiene
    Question. The 2012 U.S. National Intelligence Estimate (NIE) 
determined that a lack of access to clean water in the developing world 
will increase the risk of state failure and global instability over the 
next decade, which in turn will pose strategic issues for the United 
States. In light of the recent passage of the Water for the World Act 
and its emphasis on prioritizing help for the most in need, what 
efforts would you undertake to ensure water and sanitation funding is 
not used as a strategic bargaining chip but that appropriate 
prioritization takes place as required by law, increasing access to 
clean drinking water and sanitation where it's needed most, as part of 
a global strategy to engender goodwill toward the United States and 
reduce the risk of global instability?

    Answer. Thank you for your leadership on this issue, including your 
sponsorship of the Senator Paul Simon Water for the World Act, which I 
was pleased to see signed into law.
    It is my understanding that the act aligns with USAID's 2013 Water 
and Development Strategy, in that both prioritize USAID's water 
investments based on (1) country needs (targeting countries with the 
least access to safe drinking water, improved sanitation and hygiene, 
and highest rates of death of children under 5 due to diarrheal 
diseases); and (2) opportunities (focusing on countries with host-
government commitment to supporting water, sanitation, and hygiene).
    As you may know, the majority of USAID's priority WASH countries 
and the majority of the Agency's WASH funding can be found in sub-
Saharan Africa, a region that has historically suffered from the lowest 
rates of access to safe drinking water and sanitation in the world.
    The country prioritization and funding trends both demonstrate 
USAID's commitment to supporting the water needs of the very poor, and 
providing a foundation for sound governance of water resources that 
helps contribute to stability in priority countries.
    If confirmed, I will focus on sustainably expanding access to safe 
water, sanitation, and hygiene to the neediest countries in an 
increasingly water scarce world and look forward to consulting with the 
Congress and relevant stakeholders to ensure we are meeting the intent 
of the Water for the World Act.
Freedom promotion
    Question. Where do you see democracy and liberty promotion fitting 
into the agenda of USAID?

  <diamond> a. What percentage of USAID funds and staff time should be 
        spent on democracy and liberty promotion?
  <diamond> b. How does that compare to the current allocation of staff 
        time and funds for democracy and liberty promotion?

    Answer. Democracy promotion is central to development, and an 
integral part of the U.S. national security strategy. This is 
highlighted in the President's two published strategies as well as in 
the two Quadrennial Diplomacy and Development Reviews issued by the 
State Department and USAID. Within USAID, a new strategy on democracy, 
human rights, and governance (DRG) frames the importance of an 
integrated approach to programming within the sector, and equally on a 
holistic approach between this sector and the economic and social 
sectors. If confirmed, I intend to make democracy promotion a top 
priority.
    As stated during my testimony, to advance implementation of the new 
DRG strategy, if confirmed, I will support a greater presence of DRG 
officers in the field. Democracy officers are on the front lines each 
day, convening and networking civil society organizations, finding 
innovative ways to promote human rights, and working to ensure our 
programs in health, food security, climate change, and economic growth 
incorporate elements of citizen participation and government 
accountability.
    With respect to USAID managed and comanaged accounts, the 
President's FY 2016 request includes a substantial increase in 
democracy funding when compared to the FY 2015 request. If confirmed, I 
look forward to reviewing funding and staffing levels and working with 
Congress to ensure appropriate resources are available for this 
critical area.

    Question. As space for civil society continues to shrink globally, 
how will you put President Obama's ``Stand with Civil Society'' 
initiative into action?

    Answer. USAID has been a key player in the President's Stand with 
Civil Society agenda, a global call to action to support, defend, and 
sustain civil society amid a rising tide of restrictions on its 
operations globally. As a result of Stand with Civil Society, USAID has 
augmented programs that strengthen legal and regulatory environments 
for civil society; held numerous consultations all over the world with 
civil society; and made bold calls to strengthen regional coalitions, 
improve donor coordination and promote innovative partnerships, and 
engage local governments to collaborate with civil society to solve 
community problems.
    USAID is also exploring innovative ways to support civil society. 
For example, in partnership with the Government of Sweden and private 
philanthropy, the Agency is supporting an effort to connect civil 
society across the globe through the Civil Society Innovation 
Initiative. Through a constructive, cocreation process with civil 
society, USAID and its partners will work together with local and 
regional CSOs to design up to six regional Hubs that will be connected 
at the global level. These regional Hubs, intended to add value to and 
augment existing support to civil society, will encourage cooperation, 
innovation, research, learning, and peer-to-peer exchanges. They will 
feature virtual and physical components that can aggregate existing 
tools and resources, including on leadership capacity and regionally 
based resource mobilization, as well as serve as a support platform for 
civic activists that could provide on-demand legal aid.
    These are the types of activities I will continue to support to 
ensure that USAID is supporting the U.S. Government's efforts to 
respond to the backlash on democratic principles occurring around the 
world.
Program impact
    Question. U.S. assistance has had many successes, but too often 
USAID is focused on dollars spent, rather than impact. If confirmed, 
how will you push USAID to be focused on development outcomes?

    Answer. In order to maximize the impact of every development 
dollar, and as part of the USAID Forward reform agenda, USAID has 
introduced new operational policies related to strategic planning, 
program design, and monitoring and evaluation. As you know, this suite 
of reforms was designed to increase the Agency's strategic focus and 
development impact by ensuring that programs are designed to respond to 
local contexts, and that USAID learns from experience and adapts 
programs accordingly for better development outcomes.
    USAID's Evaluation Policy, released in 2011, is one of the key 
operational policies that is bringing new methodologies for measuring 
impact to the design and evaluation of development activities. Since 
2011, over 950 evaluations, and expanded training in evaluation for 
over 1,400 USAID staff, have bolstered active management by missions 
and operating units in evidence-based decisionmaking.
    USAID has strengthened its ability to plan and implement 
strategically, to monitor and evaluate impact, and continuously feed 
what is learned back into planning and implementation processes to 
improve outcomes. Another operational reform that has strengthened 
strategic planning for improved outcomes is the use of Country 
Development Cooperation Strategies (CDCS) to ensure analysis of changes 
in country situations and status in the medium term, and support 
evaluations and interim Agencywide assessments to inform decisions 
about adjustments in resource allocations. If confirmed as 
Administrator, I will work to further institutionalize these reforms 
across the Agency.

    Question. What are your thoughts on innovative pay-for-performance 
contracts, such as Cash-on-Delivery Aid, where U.S. taxpayers would 
only be footing the bills for measurable achievements?

    Answer. I understand that USAID is committed to utilizing the most 
effective and efficient means for incentivizing, attaining, and 
sustaining development results.
    Examples include:
    (A) Acquisition and Assistance: For acquisition (contracts), USAID 
has several options to incentivize contractors by tying payment to 
performance, including cost plus award fee, fixed price award fee, cost 
plus incentives fee, and fixed price incentive fee contracts. For 
assistance (grants and cooperative agreements), a fixed amount award, 
which was previously referred to by USAID as a fixed obligation grant, 
is the main pay-for-performance mechanism. I understand that USAID 
strives to use these mechanisms when appropriate.
    (B) Government-to-Government (G2G) Assistance: Most of USAID 
assistance to local governments is ``projectized'' which means that the 
Agency's funding is for a specific project, not simply budget support, 
and financed via either cost reimbursement, fixed amount reimbursement, 
or resource transfers (i.e., cash transfers in a few select countries).
    If confirmed, I would be interested in looking at other innovative 
pay-for-performance approaches, including Cash on Delivery.
    If confirmed, I am committed to achieving results that sustain in 
the most efficient and effective way. However, in pursuing this results 
focus, I also want to ensure that the approaches we use do not 
undermine or distort current systems such that the countries on their 
own are not able to sustain this assistance.
Africa
    Question. At a time when China and other countries are making huge 
inroads into Africa, often displacing American influence, how would you 
advance American interests in this competitive environment?

    Answer. I believe America can continue to assert influence as a 
global leader in Africa, even as sub-Saharan Africa attracts 
significant investment from China and many other countries. At the 
U.S.-Africa Leader's Summit (ALS) President Obama told the largest 
gathering of African leaders ever held in Washington, ``We don't look 
to Africa simply for its natural resources. We recognize Africa for its 
greatest resource which is its people and its talents and its 
potential.'' The United States relationship with Africa is about much 
more than extracting minerals from the ground for our growth. The 
United States seeks to build partnerships that create jobs and 
opportunity for all our peoples, and unleash the next era of African 
growth. The U.S approach provides a mix of investments in Africa 
representing a comprehensive American agenda that promotes influence in 
the forms of democracy, individual liberties and respect for the rule 
of law as well as soft power influence where we have a significant 
undisputed edge in working with African governments.
    USAID can demonstrate leadership and advance American interests in 
Africa through development programming that engages and empowers 
Africans. USAID invests heavily in programs that ensure Africans have a 
stake in their own development and continues to engage in Africa on a 
large scale. In its first year, the Power Africa initiative made 
significant progress toward achieving its initial goal of adding 10,000 
megawatts (MWs) and 20 million business and household electrical 
connections in six countries in sub-Saharan Africa. During the ALS, 
President Obama announced a tripling of Power Africa's goals--Power 
Africa partners would work together to add 30,000 MW and 60 million 
connections across all of sub-Saharan Africa. Through Power Africa, 
USAID is coordinating a total of 12 U.S. Government agencies and 
working with over 100 private sector partners, multilateral development 
institutions, bilateral partners, and African governments to increase 
power generation across sub-Saharan Africa. To date, Power Africa has 
helped projects expected to generate over 4,100 megawatts of 
electricity generation capacity reach financial close.
    Through the Feed the Future initiative, USAID is working with 
African governments, the African Union, and the private sector in 
Africa and abroad to address the root causes of hunger, poverty, and 
food crises. U.S. leadership is ensuring that the fight against hunger 
and poverty is a global endeavor. Indeed, our L'Aquila commitment of 
$3.5 billion over 3 years, which the United States met and surpassed, 
spurred other partners to pledge more than $18.5 billion. And the 
United States was instrumental in the development of five key 
principles that were subsequently adopted at the Rome World Summit on 
Food Security in November 2009. Now known as the Rome Principles, they 
constitute the foundation for collective, global action on agricultural 
development and food security. If confirmed, I will ensure that USAID 
continues to show such leadership on the continent through bilateral 
and regional partnerships with African institutions, and through the 
USG's power to convene global responses to African challenges.
    Through the Young African Leaders Initiative (YALI), the U.S. 
Government is empowering a new generation of young Africans to 
contribute to solving challenges in their communities and around the 
world. YALI works in partnership with a robust network of stakeholders 
from across the continent and in the United States to support young 
African leaders as they spur growth and prosperity, strengthen 
democratic governance, and enhance peace and security across Africa. 
This initiative also builds lasting linkages between the United States 
and Africa in government, business and civil society.
    At the same time, since China is the largest single trading partner 
with the African region, it is important that the United States engage 
the Chinese to channel global development resource flows toward more 
transparent, accountable, and transformative development objectives in 
line with our values. Through this engagement, the USG has an 
opportunity to encourage compliance with international standards for 
environmental and social risk assessments. If confirmed, I will work 
with the Department of State on developing a strategic framework for 
enhancing this engagement.
    As outlined in the President Obama's U.S. Strategy toward sub-
Saharan Africa, the United States commitment to Africa is long-standing 
and deep. The United States has invested in development partnerships 
with Africans to foster sustained economic growth, promote food 
security, increase resilience to climate change, and improve the 
capacity of countries and communities to address HIV/AIDS, malaria and 
other health threats. This is the foundation of a continuing strong 
relationship between the U.S. and African nations.
Yemen
    Question. Earlier this year, USAID suspended its conflict 
resolution programming in Yemen due to an escalation of conflict. What 
are your views of the proper role for USAID in Yemen and how USAID 
might be able to restart these important programs?

    Answer. As you know, USAID supports local, civilian-led conflict 
mitigation programs and efforts to foster dialogue throughout many 
countries worldwide. Yemen currently faces a humanitarian crisis, with 
conditions deteriorating rapidly, and USAID is focused on addressing 
this crisis through its continued life-saving humanitarian assistance. 
Since FY 2014, the Agency has provided $158 million in humanitarian 
assistance to conflict-affected and vulnerable populations in Yemen. 
USAID works through trusted humanitarian partners that are seasoned 
professionals with many decades of experience working in conflict zones 
and difficult operating environments, such as Somalia and Afghanistan.
    In light of the extremely difficult security and operational 
situation in Yemen, some USAID programs, including social and economic 
development programs, have been suspended. The safety and security of 
USAID implementing partners, beneficiaries, and local staff in Yemen is 
USAID's first priority and the Agency does not want to put them at risk 
unnecessarily. I understand that USAID has worked diligently to ensure 
that this suspension will allow the Agency to keep programs in place so 
that it can quickly restart activities--including conflict management 
and mitigation activities--at any point when the situation is 
permissive, civil society partners can meet in a safe environment, and 
USAID can ensure sufficient program oversight.
Risk assessments missing in program planning
    Question. While USAID has increased its partnerships with local 
partners in country-led programming, the Government Accountability 
Office reports risk assessments that are carried out by USAID are many 
times not used during program planning in order to mitigate those 
risks. How would you address this as Administrator?

    Answer. It is my understanding that USAID has addressed the 
concerns raised in the GAO report regarding the alignment of its 
fiduciary risk assessments with its program planning process. If 
confirmed as Administrator, I am committed to creating the conditions 
whereby countries can lead, resource, and sustain their own 
development. To the extent that effective government systems are key to 
sustaining desired results, under my leadership, the Agency will 
continue to invest directly in those systems to improve their function. 
I will ensure that the Agency continues to conduct in-depth fiduciary 
risk assessments at the country level, as well as at the institutional 
level for those organizations in which the Agency is directly 
investing.
    My understanding is that in 2014 USAID revised its internal 
regulations to align its processes for fiduciary risk assessment and 
program planning, and accompanied that revision with a worldwide 
training program. If confirmed, I will work to ensure that USAID staff 
worldwide are familiar with and implementing these regulations so that 
these fiduciary risk assessments are used in program planning in order 
to mitigate such risks.
Grants vs. contracts
    Question. In order to achieve maximum accountability for results, 
efficient use of resources, and the incorporation of lessons learned 
from prior development efforts, what do you think the appropriate 
balance is between contracts, grants, and cooperative agreements in 
acquisitions associated with development?

    Answer. To achieve maximum accountability and results, I believe 
that the appropriate choice of instrument will vary from activity to 
activity. The decision to use a grant, contract, or cooperative 
agreement should be based on a rigorous program design in which 
intended results, efficiencies, and lessons learned are incorporated.
    I understand that USAID has a history of robust use of all three 
mechanisms with assistance instruments such as grants and cooperative 
agreements receiving 60-70 percent of USAID obligations and contracts 
receiving 30-40 percent. I also understand that USAID's official policy 
states that there is no preference for acquisition instruments over 
assistance instruments or vice versa.
    In addition, I believe it is important to ensure that the choice of 
instrument is made in accordance with principles found in the Federal 
Grant and Cooperative Agreement Act.
    Please be assured that if confirmed, I will ensure that results, 
efficiencies, and lessons learned are used in each of these 
implementing mechanisms.

                               __________
               administrator-designate smith's responses 
                    to questions from senator cardin
Country ownership
    Question. Americans are proud that our country is the world's most 
generous provider of assistance to save lives in emergencies and help 
people and countries work their way out of poverty. Over the years this 
assistance has helped other countries achieve some incredible results--
including 1 billion people being lifted out of poverty in this century.

  <diamond> How do we make sure that our aid is leaving lasting results 
        that countries can build upon, so they can grow their 
        economies, strengthen their institutions and the rule of law, 
        and get to the point where they are eventually funding their 
        needs with their own economic growth?
  <diamond> What administrative reforms can we expect you to prioritize 
        to ensure that we make sure we are getting the furthest mile on 
        every U.S. taxpayer dollar going overseas--and what can 
        Congress do to alleviate the pressure to burn money too 
        quickly, measure quantitative outputs versus impact, etc.?
  <diamond> How would you invest to increase the impact of successful 
        efforts like the Local Solutions initiative?

    Answer. USAID is committed to creating the conditions whereby 
countries can lead, resource, and sustain their own development, a 
commitment that I share and will prioritize, if confirmed. I agree that 
country ownership--mutually agreed-upon priorities, direct 
implementation through local systems as the default choice, and 
domestic resourcing by local governments, civil society, and the 
private sector--should be at the core of how USAID does business. My 
understanding is that the Agency is delivering on this commitment 
through the following organizational and programmatic reforms, which I 
will prioritize if confirmed:

  <diamond> The Agency has put in place policies and a program planning 
        process that enable it to project results over a longer 
        timeframe and align its staffing and resources accordingly.
  <diamond> USAID is ensuring that its country strategies and project 
        designs prioritize and measure sustainability through country 
        ownership, regardless of the sector. This increasingly entails 
        broad local stakeholder involvement in the Agency's planning 
        processes. It also entails analysis (e.g. political economy 
        analysis) and action (i.e. improved governance) on the 
        constraints to sustainability, all of which may not be fully in 
        the Agency's manageable control.
  <diamond> The Agency has put in place the appropriate controls to 
        prudently invest directly in local governments, civil society, 
        and bolstering the private sector (as relevant) to ensure that 
        those stakeholders are accountable, effective, and can sustain 
        results on their own.
  <diamond> USAID has introduced new guidance and methodologies for 
        monitoring and evaluating project performance. USAID programs 
        are closely and actively monitored in-country--including 
        through the use of objective, third-party evaluations--to track 
        results at every level (input, output, outcome) and to make 
        room for midcourse correction when changes are needed. In 
        addition, through the use of rigorous methodologies the Agency 
        is able to evaluate the impact of its programs and the extent 
        to which outcomes can be attributed to USAID interventions.
  <diamond> The Agency has almost doubled its Foreign Service staffing 
        to increase its ability to engage directly with local 
        governments, civil society, and private sector; negotiate 
        policy reforms; leverage the local private sector; build 
        capacity; innovate; and manage its assistance programs.
  <diamond> USAID is promoting the mobilization of local resources in 
        countries where it works through tax modernization; 
        coinvestments and guarantees with the local private sector; 
        budding philanthropy; and alternative business models such as 
        social enterprises and social impact investment.
Health workforce
    Question. What is the overarching vision and strategy for helping 
the Ebola-affected countries and other developing country partners to 
build a well-trained, well-equipped and well-supported health workforce 
that can stop threats like Ebola, and at the same time help achieve 
other major priorities like ending preventable child and maternal 
deaths?

    Answer. USAID has worked closely with the national governments of 
the Ebola-affected countries as well as with other U.S. Government 
agencies and bilateral and multilateral donors to develop a health 
country plan for each country, which directly supports national 
strategies and reaches the most vulnerable populations. USAID's 
programs focus on restoring non-Ebola essential primary health services 
delivery while supporting the rehabilitation of health systems, 
including the capacity to prevent, detect, and respond to future 
outbreaks before they become epidemics, in line with our Global Health 
Security Agenda.
    To support service delivery, USAID will focus its efforts on health 
promotion and behavior change and communication at the community level. 
These efforts will help to reduce the fear of returning to health 
clinics and promote primary health services, particularly maternal and 
child health services. Support will also focus on the reopening of 
community health facilities in USAID-targeted communities which follow 
new established standards and norms for infection prevention and 
control, training of health care workers, and ensuring the availability 
of essential health commodities at the facility level. Additional 
support will also be provided for service delivery through existing 
nontraditional, community platforms, such as national health weeks and 
immunization campaigns,which will help to serve as a stop-gap measure 
until community-based facilities are up and running.
    USAID will focus on a variety of activities to improve health 
systems in both the short- and long-term in each country. Priority 
programs will include capacity-building for health care worker training 
programs to better support the recruitment, training, supervision, and 
retention of health care workers at all levels. Support will also be 
provided for curriculum development, training tools and materials, 
helping to develop a professional training track for community health 
care workers, and integration of new health workers recruited and 
trained during the crisis. Significant efforts will also be made to 
support the supply chain management efforts from forecasting and 
procurements to storage and delivery at the community level. Additional 
efforts will be considered to help support the local Ministries of 
Health on governance, health care financing (to help manage the 
additional influx of resources from donors), management and oversight. 
All three affected countries have requested support in setting up an 
infection prevention and control unit within the Ministry of Health to 
ensure the quality control and implementation of standards and norms 
for infection prevention and control implementation throughout all 
clinical settings.
    USAID-supported recovery efforts will build upon systems and 
activities put in place during the emergency response efforts to 
further enhance each country's capacity in detecting, preventing, and 
responding to further outbreaks of Ebola and other infectious disease 
threats.
    These efforts, combined with the efforts of other donors, will 
collectively support the national recovery strategies in each country 
and help to support overall efforts to end preventable maternal and 
child death.
Maternal and child health
    Question. In 2012, the United States led on the Survival Call to 
Action roadmap that identified key barriers that we needed to address 
to bend the curve on ending child deaths and increase child survival 
and health.

  <diamond> How is the United States moving this agenda forward?
  <diamond> How can you deepen or expand that commitment or vision?
  <diamond> How will you ensure that we are working with the highest-
        burden countries and promoting equity for children across the 
        globe to ensure we are reaching all children?

    Answer. Since 2009, the Obama administration has been strategically 
focusing its maternal and child health programs on countries with the 
highest burdens of maternal, newborn, and child deaths and where the 
United States had the opportunity to make a difference in this outcome. 
By focusing on countries and populations with the highest need, U.S. 
programs have helped save millions of lives, contributing to greater 
equity and more inclusive development. In USAID's 24 priority countries 
that account for more than 70 percent of global child and maternal 
deaths, nearly 800,000 more children survived in 2013 than in 2008, 
contributing to a cumulative total 2.4 million lives saved.
    USAID's 2014 report ``Acting on the Call: Ending Preventable Child 
and Maternal Deaths'' outlined an evidence-based plan to accelerate 
progress in USAID priority countries-sharpening field programs, 
realizing efficiencies, and improving accountability to yield the 
greatest number of lives saved, while building systems and partnerships 
to sustain progress. Building on this momentum, USAID appointed a Child 
and Maternal Survival Coordinator in 2015, focused on: (1) continuing 
to sharpen the Agency's work toward Ending Preventable Child and 
Maternal Deaths; (2) intensifying external engagement with Congress and 
partners, advocates, civil society, faith groups, and partner country 
leaders that are critical to progress; and (3) increasing financing for 
EPCMD.
    USAID is working to accelerate its action through a new framework 
to track success, support missions, and ensure that resources are in 
place to sustain the effort. By enhancing existing internal processes 
such as the annual operational plan development, USAID can improve its 
performance and ensure that our investments are focusing on the highest 
priorities. Dashboards have been developed to rigorously measure 
progress at both the outcome level and input level. The dashboards 
facilitate a more organized, coordinated system for tracking, and 
managing progress, and are a supporting tool in a comprehensive 
approach to measuring progress.
    I understand USAID is working to release the second ``Acting on the 
Call'' report in summer 2015, following up on commitments and targets 
set in the 2014 report. Through dashboards and these annual reports, 
USAID is holding itself and its partners accountable for accelerating 
our impact on ending preventable child and maternal deaths.
    Ending Preventable Child and Maternal Deaths cannot be accomplished 
by USAID alone. In 2012, the Governments of Ethiopia, India, and the 
United States, in collaboration with UNICEF, hosted the Call to Action 
to unite the global community around this achievable goal. The same 
partners convened again in 2014 to assess progress and identify 
challenges. This year, the Government of India will host a followup 
global conference in August, cohosted by the Governments of Ethiopia 
and the United States, and UNICEF. Since 2012, 20 governments have 
committed to--and most have developed--national plans to accelerate 
progress, set clear priorities and costs and scorecards to 
systematically track outcomes.
    Since the beginning of the Obama administration, the U.S. 
Government has increased investments in global child and maternal 
survival with the strong, bipartisan support of Congress. Worldwide, 
government health expenditures and donor contributions have seen 
meaningful growth. There still remains a gap in financing needed to 
build on progress to date and bridging that gap will require strategies 
that incorporate domestic resource mobilization, global engagement, 
USAID's Health Financing Framework, and targeted country-specific 
interventions. As countries experience unprecedented economic growth, a 
new transitional model of aid can better mobilize domestic public, 
private, and other innovative sources of funding to create a bridge 
toward equity, sustainability, and self-sufficiency. If confirmed, I am 
committed to building on the successes of USAID's efforts to end 
preventable maternal and child deaths.

    Question. As you know, land tenure is a critical element of food 
security. However, smallholder farmers, particularly women farmers, are 
often at risk of having their land seized without their consent in 
large land acquisitions. This has been a challenge in efforts to 
promote food security and helped drive the development of the land 
tenure guidelines, which I am pleased that the United States supported.

  <diamond> What are your thoughts on how USAID can ensure a strategy 
        that includes participation of small-scale farmer's 
        organizations and prioritizes their needs?
  <diamond> Will USAID continue to support policies favoring large 
        agribusiness and large-scale land acquisition in Africa?
  <diamond> How will USAID avoid being involved in projects that fail 
        to respect the legitimate tenure rights of local people, 
        especially in post-disaster or post-conflict assistance where 
        communities are especially vulnerable?
  <diamond> What role do you see for the U.S. Government/USAID in 
        fostering increased investments by donor and host governments 
        in the agricultural sector of countries facing food insecurity, 
        specifically investments geared toward benefiting smallholder 
        farmers?

    Answer. I fully agree that land tenure is a critical element of 
food security. Indeed, smallholder farmers, particularly women farmers, 
are often at risk of having their land seized without their consent in 
large land acquisitions. This has been a challenge in efforts to 
promote food security and helped drive the development of the land 
tenure guidelines you reference.
    USAID has taken steps to ensure that land-based investments are 
responsible, inclusive, and sensitive to the interests and concerns of 
local communities. USAID supports efforts to combat hunger, poverty, 
and malnutrition through the U.S. Government's Feed the Future 
initiative, which prioritizes improving smallholder farmer access to 
tools, technologies, and markets as they are the backbone of rural 
economies. If confirmed, I will ensure that Feed the Future continues 
to prioritize country ownership, and backs strategies developed by host 
country governments with input and ongoing engagement across a range of 
important stakeholders, including smallholder farmer organizations, 
local private sector, and research organizations, to ensure inclusive 
agricultural growth.
    USAID, through Feed the Future, supports the principles of the New 
Alliance for Food Security and Nutrition, a shared commitment among 
African governments, donors, development partners, and the private 
sector that was launched in 2012 to encourage responsible private 
sector engagement in promoting inclusive growth in the agriculture 
sector for sustainable impact against poverty and malnutrition. If 
confirmed, I will ensure that the Agency continues to reinforce efforts 
to create an enabling environment for responsible investment that 
include commitments among participating parties to adhere to the 
Voluntary Guidelines on the Responsible Governance of Tenure of Land, 
Fisheries and Forests in the Context of National Food Security.
    I understand that USAID has developed Operational Guidelines for 
Responsible Land-Based Investment, which serve as guidance to the 
private sector on how to ensure that land-based investments protect 
local communities and do not displace or disadvantage local 
populations. Through training and technical assistance, research and 
evaluation, policy reform, and pilot projects, USAID is committed to 
implementing the principles set forth in the Principles for Responsible 
Investment in Agriculture and Food Systems and Voluntary Guidelines for 
the Responsible Governance of Tenure of Land, Fisheries, and Forests. 
These international law instruments create important standards of 
practice that protect people and communities and create an enabling 
environment that promotes broad-based economic growth and reduces 
extreme poverty. If confirmed, I will promote the full utilization of 
these instruments in all USAID's economic growth programs.
    USAID plays a lead role globally in promoting agriculture sector 
and food security investments through development partnerships at all 
levels. Data indicate that the agriculture sector is more than twice as 
effective in reducing poverty and increasing food security as other 
economic growth activities. A focus on reducing poverty and 
undernutrition requires a clear focus on improving the status of 
smallholder farmers. If confirmed, I will ensure that USAID investments 
focus clearly on the needs and opportunities of small-scale farming 
families and communities, where the great majority of the poor and 
food-insecure live. With its emphasis on sustainability through 
country-led partnerships, I understand that Feed the Future has helped 
spur significant increases in host-country investments in agriculture 
and food security. At their recent summit in Malabo for example, 
Africa's leaders adopted agriculture and food security as a main 
development focus, committing to invest 10 percent of national budgets 
in agriculture. Evidence-based partnerships are occurring in other 
food-insecure regions as well. Feed the Future is clearly contributing 
to reductions in both poverty and child stunting in countries where 
USAID works. If confirmed as USAID's Administrator, I will strengthen 
partnerships with both beneficiary countries, donor countries, and 
other investors to ensure that a clear priority on agriculture and food 
security continues to emphasize gains in small-farm communities.
    USAID is uniquely placed to drive gains for smallholder farmers, 
producers, and rural families that work in goods and services around 
agriculture-based value chains. Through partnerships with the U.S. 
university community for example, Feed the Future Innovation Labs are 
leading the way in developing new technologies and sustainable 
management practices that focus on increasing productivity and reducing 
risk in small-scale farming. Through global research alliances that 
link scientists and students in the United States with counterparts in 
partner countries and key international research organizations, USAID 
is leveraging the best of global science to enhance the lives and 
livelihoods of rural producer communities across Africa, Asia and Latin 
America. If confirmed, I will continue and enhance a focus on 
increasing both productivity and profitability of their enterprises and 
the private sector value chains that depend on them. I will work to 
ensure that USAID investments continue to drive agriculture and food 
security gains in ways that also enhance employment opportunities for 
the young--men and women--both on farm and off.
Countering violent extremism
    Question. Countering Violent Extremism (CVE) has emerged as a top 
White House priority, as evidenced by the February summit. And the 
State Department just released the Quadrennial Diplomacy and 
Development Review, which highlighted a CVE strategy that stressed the 
need for good governance and the importance of addressing corruption.

  <diamond> What were the key outcomes/take-aways of the Kenyan CVE 
        summit?
  <diamond> How will the strategies discussed there inform broader 
        prevention efforts in sub-Saharan Africa?
  <diamond> In your view, what are USAID's strongest tools when it 
        comes to CVE? How does USAID plan to utilize tools to address 
        the root causes of radicalization in the West African and Sahel 
        contexts to counter the ideology of groups such as Boko Haram 
        and al-Qaeda in the Islamic Maghreb (AQIM)?

    Answer. The Kenya Countering Violent Extremism (CVE) summit will be 
held in Nairobi on June 25-28. This will be one of several regional 
summits held in the wake of the White House summit in February and in 
the leadup to the Senior Leader summit to be held in New York around 
the U.N. General Assembly.
    This summit builds on a foundation of existing engagements aimed at 
building cooperation in the East Africa region, such as the Global 
Counter Terrorism--Horn of Africa Working Group and the Partnership for 
Regional Counterterrorism in East Africa. The participants for the 
Kenya CVE summit will represent a broad spectrum of government and 
civil society from throughout the region. The objective is to enhance 
further regional cooperation and coordination, as well as develop a 
joint understanding of how violent extremists gain and sustain support 
among some local populations. By sharing knowledge and best practices, 
the conference will help strengthen the response to violent extremism 
in the East Africa region and beyond. USAID is a key member of the U.S. 
delegation to the Kenya summit and will participate in all the other 
planned regional summits.
    The White House CVE summit and the regional summits have 
highlighted the value of USAID's approach to addressing violent 
extremism as part of a whole-of-government response to terrorist 
threats in Africa and worldwide. In 2011, USAID released an agency-
level policy, the Development Response to Violent Extremism and 
Insurgency, that outlines best practices from several years of CVE 
programming, as well as from research on the factors that drive violent 
extremist recruitment and how development assistance can help mitigate 
these root causes. A critical aspect of effective CVE programming is 
building community resilience, which is particularly key in areas at 
recurring risk of exploitation by violent extremist groups. At its 
core, USAID's approach is based on understanding the legitimate 
concerns of minority populations in areas most at risk to violent 
extremism; working with local community organizations and government 
officials to address those concerns; building respect for human rights 
and the rule of law among all parties; and promoting respected, 
moderate voices who can encourage peaceful solutions to expressed 
grievances. I understand that based on evaluations of USAID programs in 
Chad, Niger, Mali, and Kenya, these programs have made a measurable 
impact among local populations by undermining support for violent 
extremist rhetoric and activities.
    It is my belief that the United States needs a broad array of tools 
in its toolkit to counter terrorism effectively. USAID's programs 
attempt to address problems at their source by decreasing the momentum 
and rationale behind violent extremist recruitment while reducing local 
sympathies and support for extremists. These efforts complement our 
Nation's ongoing diplomatic, defense, and intelligence assets aimed at 
reducing the terrorist threat to ourselves and our partners.
The Europe and Eurasia Bureau
    Question. With the rise of a belligerent Russia, the E&E Bureau has 
taken on new prominence and significant budget responsibilities 
especially with respect to Ukraine, yet the E&E Bureau does not have 
offices in the main headquarters building. This sends a bad message and 
hampers the Bureau's ability to coordinate with the rest of USAID.

  <diamond> What can be done to address this issue?
  <diamond> Would you consider at least moving the leadership of the 
        E&E Bureau into the main USAID building?

    Answer. I have not been involved in any decisions related to space 
within USAID's headquarters. If confirmed, I look forward to receiving 
a briefing from the relevant personnel on the Agency's plans with 
respect to the allocation of space and will ensure that our plans are 
consistent with Agency priorities and staffing requirements.
MENA
    Question. In 2011 the Arab Spring protests and calls for nonviolent 
reform offered tremendous hope for the potential of the Middle East 
region. Four years later we face a long, cold winter with many states 
reverting to old bad habits of closing off all avenues for nonviolent 
political expression or economic opportunity. Worse yet, we are facing 
failed or close to failing states in Yemen, Libya, and Syria. In the 
face of such unpredictability, instability, and violence the U.S. 
diplomatic presence and USAID field offices have been forced to draw 
down or close. In other areas, governments are actively confronting 
USAID funded programs and projects.

  <diamond> How are you thinking about U.S. assistance and development 
        engagement in the Middle East and North Africa against this 
        depressing and alarming backdrop?
  <diamond> Do we need to change the way we do business, or the 
        missions we pursue, in the region?

    Answer. USAID works with local and international partners to 
address the tremendous needs in the Middle East and North Africa. USAID 
recognizes that capable and accountable governance institutions are 
crucial to the sustainability of our development investments, which is 
why the Agency seeks to integrate democracy, human rights and 
governance principles and practices across all programming.
    USAID's approach in the Middle East is twofold; the Agency works 
not only with governments, but also at a grassroots level, changing the 
lives of individuals and transforming communities. USAID works closely 
with national governments where that is possible, and where national-
level governance institutions are lacking, USAID works at the local 
level, with municipal councils or local civil society, to help meet the 
immediate needs of the people in the region as well as build 
sustainable local governance structures that can support a move to 
resilient democratic societies. Local- and municipal-level governance 
issues are an increasingly important component to USAID's work in the 
region, especially in communities affected by conflict and crisis. Key 
elements in all USAID programs are a deep analysis of the political 
context, supporting citizen engagement in policymaking and service 
delivery, and promoting the rights of all citizens and groups to ensure 
equitable development gains. USAID programs represent a long-term 
investment in the people and communities of the Middle East and North 
Africa and build on the Agency's mission to partner to end extreme 
poverty and promote resilient, democratic societies while advancing our 
own security and prosperity.
    USAID is constantly reassessing the way it does business and the 
specific programs in which it invests. Each country and regional 
program begins with a careful assessment of local needs and capacity 
for reform. Once programs are implemented they are carefully monitored 
and evaluated for effectiveness and lessons learned. Security concerns 
remain a significant challenge, and the security of USAID staff and 
implementing partners is paramount. In places where USAID has no 
direct-hire staff on the ground, the Agency uses local and 
international partners as well as remote management techniques to 
continue and ensure close oversight of USAID programs.
    If confirmed, I look forward to working with Agency personnel, the 
Congress, and our implementing partners to ensure our programming is 
achieving maximum impact and effectiveness.
Humanitarian response (Syria)
    Question. In addition to the recently closed $10 million USAID/
DCHA/OFDA Annual Program Statement to support local capacity-building 
and emergency response efforts in Syria, in what other ways can USAID 
best support long-term efforts to more effectively reach the over 12.2 
million IDP's inside Syria that are in need of humanitarian assistance?

    Answer. USAID continues to work through all channels--including the 
United Nations (U.N.), international organizations, nongovernmental 
organizations (NGOs), and local Syrian organizations and networks--to 
maximize the reach of critical, lifesaving assistance to conflict-
affected populations throughout Syria. This includes assistance that 
originates in Syria as well as cross-line and cross-border assistance. 
By using all means possible to get lifesaving assistance to those in 
need throughout the country--including in regime, contested, and 
opposition--held areas--USAID is reaching all 14 governorates of Syria.
    The aministration's ultimate humanitarian priority is to provide 
lifesaving assistance to all that we are able to reach and continue to 
push for consistent, safe, and secure access for humanitarian aid 
workers. As part of ongoing efforts to address the increase in 
humanitarian needs in an extremely fluid conflict, USAID continues to 
identify and support opportunities to strengthen and maximize the reach 
of humanitarian assistance throughout Syria. As part of all 
humanitarian programs, including USAID's Office of U.S. Foreign 
Disaster Assistance (OFDA) Annual Program Statement, USAID partners 
provide technical assistance to local organizations to strengthen their 
ability to meet the needs of affected populations. USAID works with 
other donors and implementing partners to identify opportunities to 
transition from emergency response to longer term early recovery and 
development programs. The Agency's humanitarian experts coordinate 
closely with development counterparts to help ensure that, when 
humanitarian assistance programs end, basic social services can be 
maintained.
    The needs in Syria are significant and USAID has had to balance 
these needs with those of other crises around the world, prioritizing 
the most immediate lifesaving assistance first. I understand that USAID 
is working closely with the State Department as well as other 
international donors to encourage countries to follow through on 
pledges made at the Kuwait conference, especially Gulf States.
Egypt
    Question. President Sisi has made economic stabilization a priority 
for his administration and has committed to creating employment through 
megaprojects like the expansion of the Suez Canal. U.S. assistance has 
focused supporting education, entrepreneurs, and small and medium-sized 
enterprises, most notably through the Higher Education Initiative and 
the Egyptian American Enterprise Fund.

  <diamond> In what ways do U.S. assistance and Egyptian economic 
        development initiatives complement each other?

    Answer. U.S. economic assistance to Egypt is designed to work 
across all sectors to support and strengthen Egyptian actors who 
advance democratic ideals. Improved employment and economic opportunity 
are cornerstones of stability in Egypt. Poverty and economic exclusion, 
when unaddressed, inhibit the ability of individuals to invest in their 
own future and make them vulnerable to forces of instability as they 
struggle to provide for their daily needs.
    I understand that USAID supported Egypt's Ministry of Planning in 
developing the country's Sustainable Development Strategy, released in 
March 2015. The strategy has four principal goals: (1) improved 
economy, including macroeconomic, tax, and subsidy reforms to reduce 
the deficit and lower inflation; (2) improved business enabling 
environment through regulatory and institutional reforms; (3) better 
access for all Egyptians to services and employment opportunities; and 
(4) increased investment in human capital, specifically reforming 
education and health systems. The strategy also emphasizes improving 
social safety nets and promoting opportunity for women and youth.
    USAID is positioned to support the Government of Egypt's vision 
outlined in its Sustainable Development Strategy. USAID programs in 
economic growth, education, health, and democracy and governance are 
designed to address the core development issues identified in the 
Government of Egypt's strategy. USAID supports major themes of the 
strategy, including macroeconomic policy reform, small and medium 
enterprise development, vocational and technical education, and social 
justice and inclusion.
    For example, building skills in Egypt's private sector workforce, 
particularly in small business, tourism, and agriculture, is a key 
component of USAID's development approach. USAID also recognizes the 
need to work within the health care system to provide better care in 
rural community clinics and promote infection control programs in 
hospitals.USAID's technical and vocational school interventions and 
programs that support science, technology, engineering, and mathematics 
education promote private sector growth and enterprise development. 
Many of USAID's activities target underserved areas, mainly in rural 
Egypt. All of these interventions are supportive of the Government of 
Egypt's Sustainable Development Strategy.

  <diamond> How can U.S. assistance help to promote political reform, 
        in addition to economic reform?

    Answer. Consistent with U.S. foreign policy objectives, assistance 
activities in Egypt are designed to promote both political and economic 
reform. U.S. assistance focuses on various aspects of the enabling 
environment needed both for inclusive economic growth and improved 
governance. Support also assists in making public institutions more 
accountable and effective, and in empowering Egypt's citizens.
    If confirmed as Administrator, I will ensure USAID's continued 
commitment to promoting essential democracy and governance principles 
in Egypt. While advancing certain democracy, rights and governance 
issues is a challenge in the current environment, the Agency is moving 
forward with support to civil society organizations to combat gender-
based violence, promote women's empowerment, counter trafficking in 
persons, promote religious tolerance, and support rights of people with 
disabilities. Many international and Egyptian civil society 
organizations remain committed to working with USAID. The Agency also 
works to empower Egyptian civil society actors across its assistance 
programs, including in education, economic development and health.
    The Egyptian Government has also specifically requested USAID 
assistance in key areas such as election administration reforms, 
training Egyptian judges, and decentralizing Egypt's Government in line 
with provisions of Egypt's new Constitution. USAID also has mechanisms 
in place to support parliamentary strengthening once a new Parliament 
is elected.

    Question. There is solid evidence that early malnutrition, 
especially during the 1,000 day window from pregnancy to age 2, is an 
obstacle to cognitive and physical development. It affects long-term 
health, learning and earning potential. Malnutrition, in other words, 
is a constraint to economic growth.
    Malnutrition is also the underlying cause of half of all deaths of 
children before they reach their 5th birthday. Having the benefit of 
the recently launched USAID Multi-Sectoral Nutrition Strategy and the 
soon-to-be launched U.S. Whole of Government Nutrition Coordination 
Plan, how would you build upon global momentum on maternal and child 
nutrition to achieve and increase U.S. nutrition commitments and high 
impact interventions that help children to survive and thrive?

    Answer. USAID's multidisciplinary approach to addressing 
malnutrition works across the Agency's programs, including the U.S. 
Government's Feed the Future and Global Health activities, the Office 
of Food for Peace development programs, resilience efforts, and 
nutrition investments through economic growth, water and sanitation, 
and other sectors. USAID's focus is primarily on the prevention of 
undernutrition during the first 1,000 days--from pregnancy through a 
child's second birthday--through comprehensive programs in health, 
humanitarian assistance, and food security. Last year, the Agency's 
efforts reached over 12.5 million children under 5 with nutrition 
interventions. Over the past 18 months, USAID has led the development 
of a consolidated U.S. Government Nutrition Coordination Plan to 
harness the power of the diverse investments across the U.S. Government 
through better communication and collaboration, and to create stronger 
links between research and program implementation. This plan is 
expected to be launched this fall.
    The Agency's high level goal to End Preventable Child and Maternal 
Deaths has nutrition at its core with renewed investments to promote 
breastfeeding, improve maternal nutrition for mothers' health and for 
the healthy growth and development of babies, and for better feeding 
practices for infants and young children. Better nutrition includes 
clean water, better hygiene and sanitation to prevent the vicious cycle 
of infection and chronic undernutrition.
    Multisectoral attention in nutrition interventions is producing 
positive results. In Bangladesh, 2014 survey results show an almost 15 
percent average reduction in stunting during the past 3 years across 
priority geographical areas where Feed the Future programs are 
concentrated. In Ethiopia, through Feed the Future and Food for Peace 
development and emergency programs, USAID is supporting progress toward 
achieving real reductions in stunting, with rates declining by 9 
percent over the past 3 years, resulting in 160,000 fewer stunted 
children despite a growing population.
    If confirmed, I will continue to scale up USAID's successful 
multisectoral programs and exercise strong leadership, including 
through its critical role in the global Scaling Up Nutrition--or SUN--
Movement, to leverage the combined efforts and commitments of multiple 
donors and countries to drastically reduce chronic malnutrition 
globally. SUN is a global movement comprised of 55 country governments, 
civil society, private sector, and donors and provides a global 
spotlight on the challenges and progress in eliminating undernutrition.

                               __________
               administrator-designate smith's responses 
                    to questions from senator boxer
    Question. Supporting Women Globally.--This year marked the 20th 
anniversary of the 4th World Conference on Women. Over the past 20 
years, the international community has made important progress on 
advancing the rights of women worldwide. However, as long as women and 
girls around the globe continue to face violence and discrimination and 
are denied the opportunity to exercise their most basic rights, the 
United States must continue to focus on women and girls as a 
cornerstone of its foreign policy and development.

  <diamond> How do you see the role of women and girls in development?
  <diamond> If confirmed, how will you work to ensure that USAID 
        programs continue to advance women's equality, health, 
        political participation, and rights globally?

    Answer. Throughout my career, I have been dedicated to initiatives 
that empower women and girls. Gender equality and women's empowerment 
must be at the core of all of our development programs. Water, energy, 
agriculture, health, and education all affect men and women 
differently. These differences are not barriers but opportunities to 
maximize the impact of our work by delivering development in a more 
targeted, effective and sustainable way.
    Over the past several years, the Agency has made important strides 
to elevate women and girls in its approach and programming. The U.S. 
National Action Plan (NAP) on Women, Peace, and Security (2011) and the 
subsequent USAID Implementation Plan are an integral part of the 
Agency's architecture for advancing gender equality and female 
empowerment. In 2012, USAID released the Gender Equality and Women's 
Empowerment Policy, which mandates that gender equality be integrated 
throughout all programs and initiatives. To help facilitate 
integration, USAID developed accompanying policy implementation 
guidance, a series of in-person and online gender training courses to 
build staff capacity, and a suite of technical resources and tools that 
have been disseminated to staff worldwide.
    Now that the foundation has been established, the remaining 
challenge is to ensure that gender is truly integrated across all of 
the sectors in which the Agency works, including global initiatives 
such as eradicating extreme poverty, resilience, countering violent 
extremism, and responding to climate change. Doing so will require a 
deeper understanding of the challenges in each sector through in-depth 
gender analysis and impact measurement as well as the necessary 
resources to advance the solutions.
    USAID has a major role in the White House's new Let Girls Learn 
initiative, which addresses the complex and varied barriers preventing 
adolescent girls from attending and completing school, and from 
realizing their potential as adults. USAID's Let Girls Learn approach 
is comprised of three main pillars: Increasing Access to Quality 
Education; Reducing Barriers such as school fees and the threat of 
violence; and Empowering Adolescent Girls.
    If confirmed, I will work with Congress and with the talented men 
and women of USAID to build on this important progress.

    Question. Improving Education for Adolescent Girls.--Globally, 62 
million girls are not in school and approximately 17 million will never 
go to school. Of these girls, 35 million are adolescents who should be 
in or nearing secondary school. Statistics show that increased levels 
of girls' education support improved health, economic status, and 
political participation.
    In 2013, I introduced legislation, named for Malala Yousafzai, 
which was designed to expand scholarship opportunities for 
disadvantaged young women in Pakistan through USAID's Merit and Needs 
Based Scholarship Program. In response to this legislation, I was 
pleased that USAID committed to provide 50 percent of all future 
program scholarships to women and is on track to meet that goal in 
calendar year 2015.

  <diamond> If confirmed, how will you work to continue to expand 
        educational opportunities for women and girls in Pakistan?

    Answer. Pakistan's ability to educate its population is critical to 
the country's long-term stability and prosperity. I understand that, 
despite recent measures taken to expand Government of Pakistan spending 
and performance in this sector, Pakistan's challenges remain daunting. 
School-aged girls, specifically, face additional challenges; 55 percent 
of children out of school are girls. For those who do attend school, 
many are not learning what is needed to find employment and function in 
Pakistan's economy.
    In line with Pakistan's Vision 2025, U.S. assistance helps Pakistan 
address obstacles to accessing quality basic and higher education, 
including for women and girls. Programming also provides ample 
opportunity to build collaborative relationships between U.S. and 
Pakistani individuals and institutions, which will have a long-term 
impact on Pakistan's trajectory and U.S.-Pakistan cooperation. If 
confirmed, I will ensure USAID's basic and higher education programs 
will continue to work to improve access to education for young 
Pakistanis, including women and girls. For example, I understand that 
in basic education, the Pakistan Reading Project (PRP) is USAID/
Pakistan's flagship reading program, and will continue to support 
Pakistani-led efforts to introduce and institutionalize improvements in 
reading instruction and reading assessment in the first and second 
grade levels in public schools across Pakistan. The project will train 
more qualified female teachers for girls' and mixed gender primary 
schools, and will reach approximately 754,000 students, of which half 
are girls and, of the girls, 27 percent are adolescents.
    In Sindh, I understand that USAID's Sindh Basic Education Project 
will continue to strengthen the capacity of the Government of Sindh to 
deliver quality education and empower communities to become more 
involved in their children's education. To improve educational outcomes 
and increase community involvement in education, the project will help 
construct schools, train teachers in early grade reading and 
mathematics instruction and provide basic reading and math skills to 
students. The program is projected to benefit over 82,000 adolescent 
girls.
    In higher education, I understand USAID has seen an increase from 
48 percent to 58 percent of university scholarships under USAID/
Pakistan's Merit and Needs-Based Scholarship Program awarded to women. 
To date, 507 scholarships have been awarded to students; of these, 293 
were given to female students. Pakistan also remains the largest 
Fulbright Scholars program country in the world, with half of all 
scholarships going to women.

  <diamond> Will you commit to make girls' education--especially 
        adolescent girls' education--a priority during your tenure at 
        USAID?

    Answer. If confirmed, I will ensure that USAID will remain strongly 
committed to ensuring that girls succeed and stay in school. Advancing 
girls' education can unlock human potential on a transformational 
scale. Girls' education is key in the global effort to end extreme 
poverty. Investing in girls' education could boost agricultural output 
in sub-Saharan Africa by 25 percent, and if 10 percent more girls 
attend school, a country's GDP increases by an average of 3 percent.
    Advancing girls' access to, and success in, education is integrated 
throughout the Agency's education portfolio. By integrating gender 
considerations across all USAID's education programs, the Agency has 
the potential to transform gender norms and achieve equality for all 
learners in a scalable and sustainable manner. USAID provides 
substantial support and funding aimed at ensuring that girls and 
adolescent females have increased equitable access to quality 
education, particularly in crisis and conflict-affected environments. 
Specifically in education, I understand that promoting gender equality 
remains a top priority in each of the three Education Strategy goal 
areas: increasing primary grade reading; youth and workforce 
development; and education in crisis- and conflict-affected areas.
    One of the first USAID programs announced under Let Girls Learn is 
the one the First Lady announced during her trip last week in the 
Democratic Republic of the Congo, where USAID has partnered with the 
United Kingdom's Department for International Development (DFID) to 
provide girls who are not in school with access to accelerated and 
alternative learning programs in the conflict-affected areas of North 
Kivu, South Kivu, and Katanga. This program aims to benefit more than 
755,000 girls ages 10 to 18 over the next 5 years, providing up to $180 
million (up to $125 million by USAID and <brit-pound>36M committed by 
DFID). Through programs like this, and throughout the Agency's 
portfolio, USAID supports adolescent girls in getting the education 
they deserve.

    Question. U.S. Efforts to Support International Family Planning.--
Statistics clearly show that a woman's ability to decide when, whether, 
and how many children to have is fundamental to her ability to thrive 
and fully realize her rights and potential.

  <diamond> How do you see access to voluntary family planning services 
        as part of broader efforts to support women's health and 
        rights?

    Answer. Access to voluntary, affordable, and high-quality family 
planning services is an essential part of USAID's broader effort to 
support women's health and rights. When women are able to delay their 
first birth until at least age 18 and to space subsequent births at 
least 2 years apart, both mother and baby are more likely to survive. 
Some 225 million women in the developing world say they want to delay 
their next pregnancy or stop childbearing altogether but are not using 
a modern method of contraception. Fully meeting this unmet need by 
expanding access to, and use of, voluntary family planning would result 
in 52 million fewer unintended pregnancies, 70,000 fewer maternal 
deaths, and 500,000 fewer infant deaths annually. In addition, girls 
who can avoid pregnancy while in school are more likely to finish 
school.

    Question. U.S. Efforts to End Preventable Maternal and Child 
Deaths.--In your testimony, you mentioned that continuing efforts to 
end preventable child and maternal deaths would be a priority for you 
if you are confirmed to be the Administrator of USAID.
    It is more important than ever that the United States continue to 
make robust investments in maternal and child health. As a result of 
U.S. leadership, real and measurable progress has been made. In the 24 
countries where U.S. involvement has been the greatest, maternal 
mortality has declined an average of 4 percent each year, faster than 
the global average.

  <diamond> With this progress in mind, if confirmed, how will you work 
        to continue and expand these effective investments to work 
        toward achieving the global goal of ending preventable maternal 
        and child deaths by the year 2035?

    Answer. Since 2009, the Obama administration has been strategically 
focusing its maternal and child health programs on countries with the 
highest burdens of maternal, newborn, and child deaths and where the 
United States had the opportunity to make a difference in this outcome. 
By focusing on countries and populations with the highest need, U.S. 
programs have helped save millions of lives, contributing to greater 
equity and more inclusive development. In USAID's 24 priority countries 
that account for more than 70 percent of global child and maternal 
deaths, nearly 800,000 more children survived in 2013 than in 2008, 
contributing to a cumulative total 2.4 million lives saved.
    USAID's 2014 report ``Acting on the Call: Ending Preventable Child 
and Maternal Deaths'' outlined an evidence-based plan to accelerate 
progress in USAID priority countries--sharpening field programs, 
realizing efficiencies, and improving accountability to yield the 
greatest number of lives saved, while building systems and partnerships 
to sustain progress. Building on this momentum, USAID appointed a Child 
and Maternal Survival Coordinator in 2015, focused on: (1) continuing 
to sharpen the Agency's work toward Ending Preventable Child and 
Maternal Deaths; (2) intensifying external engagement with Congress and 
partners, advocates, civil society, faith groups, and partner country 
leaders that are critical to progress; and (3) increasing financing for 
EPCMD. USAID is working to accelerate its action through a new 
framework to track success, support missions, and ensure that resources 
are in place to sustain the effort. By enhancing existing internal 
processes such as the annual operational plan development, USAID can 
improve its performance and ensure that our investments are focusing on 
the highest priorities. Dashboards have been developed to rigorously 
measure progress at both the outcome level and input level. The 
dashboards facilitate a more organized, coordinated system for 
tracking, and managing progress, and are a supporting tool in a 
comprehensive approach to measuring progress.
    I understand USAID is working to release the second ``Acting on the 
Call'' report in summer 2015, following up on commitments and targets 
set in the 2014 report. Through dashboards and these annual reports, 
USAID is holding itself and its partners accountable for accelerating 
our impact on ending preventable child and maternal deaths.
    Ending Preventable Child and Maternal Deaths cannot be accomplished 
by USAID alone. In 2012, the Governments of Ethiopia, India, and the 
United States, in collaboration with UNICEF, hosted the Call to Action 
to unite the global community around this achievable goal. The same 
partners convened again in 2014 to assess progress and identify 
challenges. This year, the Government of India will host a followup 
global conference in August, cohosted by the Governments of Ethiopia 
and the United States, and UNICEF. Since 2012, 20 governments have 
committed to--and most have developed--national plans to accelerate 
progress, set clear priorities and costs and scorecards to 
systematically track outcomes.
    Since the beginning of the Obama administration, the U.S. 
Government has increased investments in global child and maternal 
survival with the strong, bipartisan support of Congress. Worldwide, 
government health expenditures and donor contributions have seen 
meaningful growth. There still remains a gap in financing needed to 
build on progress to date and bridging that gap will require strategies 
that incorporate domestic resource mobilization, global engagement, 
USAID's Health Financing Framework, and targeted country-specific 
interventions. As countries experience unprecedented economic growth, a 
new transitional model of aid can better mobilize domestic public, 
private, and other innovative sources of funding to create a bridge 
toward equity, sustainability, and self-sufficiency. If confirmed, I am 
committed to building on the successes of USAID's efforts to end 
preventable maternal and child deaths.

                               __________
               administrator-designate smith's responses 
                    to questions from senator rubio
On democracy, rights, and governance
    Question. What guarantees can you give the committee that you will 
consult the democracy, rights, and governance (DRG) community on 
USAID's strategic objectives and program implementation? Are you 
willing to provide the committee with periodic reports on your 
consultations with the DRG community?

    Answer. The community of implementing organizations--including 
grantees, contractors, universities, private sector organizations, 
labor, human rights and women's rights advocacy groups and other 
organizations--is essential to accomplishing USAID's mission to promote 
prosperous, resilient democratic societies. I believe that consultation 
with international and local partners is fundamental to the successful 
implementation of the Agency's programs. In developing strategies, 
programs, and implementing strategies, USAID policy calls for 
consultation with stakeholders and if confirmed, I will strongly 
support these efforts and will commit the Agency to providing periodic 
reports to the committee on our consultations with the democracy, 
rights and governance community.

    Question. The United States has developed a strong nonprofit sector 
to implement, through cooperative agreements, programs in support of 
those seeking freedom and genuinely participatory governance. How will 
you ensure that funding for DRG programming will be maintained through 
the cooperative agreement mechanism?

    Answer. I understand that cooperative agreements, as one form of 
assistance, are widely used and represent a successful approach for 
accomplishing objectives across many development sectors, particularly 
in the Democracy, Rights and Governance (DRG) sector. I further 
understand that contracts also have an appropriate role to play in 
implementing DRG assistance. My understanding is that the Agency is 
currently working to develop supplemental guidance for the DRG sector 
to assist field officers in determining the choice of mechanism in 
light of what they are trying to achieve and what in their judgment 
will produce success in that country setting. If confirmed, I look 
forward to consulting with Congress and our implementing partners to 
ensure we are getting this mix right.

    Question. USAID has attempted to ``mainstream'' democracy and 
governance by claiming to incorporate it into traditional development 
programs (e.g., health, education, environment), yet the record is 
mixed on whether that actually works. What are your intentions to work 
with the DRG community on the incorporation of participatory mechanisms 
in traditional development programming?

    Answer. ``Mainstreaming'' or what the Agency has defined as 
``Democracy, Rights and Governance (DRG) integration'' involves the use 
of DRG approaches across other development sectors. This initiative is 
based on the understanding that technical solutions alone may be 
ineffective or unsustainable without a strong foundation based on good 
governance and effective, transparent, and accountable institutions. 
Indeed, the Agency's programs in health, food security, climate change, 
economic growth all need to have components of citizen participation 
and government accountability to be successful.
    If confirmed, I am committed to consulting partners in the DRG 
community on an ongoing basis to maximize the effectiveness and impact 
of our programs and ensure that democratic principles underpin all of 
our work.

    Question. Specifically in the case of closed societies or countries 
where space for political activity and civil society is closing, what 
is your vision for USAID's role in providing support in those 
instances? What specific steps would you implement to achieve your 
vision?

    Answer. I believe that USAID has a critical role to play in 
supporting reform within closed societies. In doing so, however, the 
Agency must maintain an appropriate balance between the transparency of 
USAID's programming on the one hand and the security of our 
implementing partners and program beneficiaries on the other hand. It 
is my understanding that over the past year, and in consultation with 
Congress and implementing partners, USAID has formulated and begun to 
implement a new policy in this area, which is available on its public 
Web site. The new guidance sets out core principles and detailed 
processes to govern the Agency's work in this small set of countries. 
For example, USAID will work with prospective partners to identify all 
possible sources of risk to a proposed program. And the Agency will 
undertake senior-level quarterly reviews to ensure that all of our 
programs in these countries are sufficiently addressing risk and 
sufficiently fulfilling our obligation to transparency.
    I think this represents a sensible approach, and if confirmed, look 
forward to working with the Agency, Congress, and our implementing 
partners to provide careful stewardship of these critical programs.
On Central America
    Question. The State Department is asking for $1billion dollars for 
1 year to improve security, advance good governance and stimulate the 
economy of El Salvador, Guatemala, and Honduras which are collectively 
known as the Northern Triangle Countries.

  <diamond> What programs does USAID currently have in Central America?

    Answer. Much of USAID's assistance in recent years has focused on 
crime and violence prevention through the Central America Regional 
Security Initiative (CARSI). Results from a Vanderbilt University 
impact evaluation of USAID's CARSI community-based interventions in 
Guatemala, El Salvador, Honduras, and Panama show that USAID's programs 
are reducing crime victimization and residents' sense of insecurity. 
For example, in communities with USAID interventions, compared to 
control communities with no USAID intervention, there was a 51-percent 
decrease in residents' awareness of murders in their own neighborhoods, 
51-percent decrease in residents' reports of extortions, 25-percent 
decrease in residents' reports of illegal drug sales, and 19-percent 
decrease in residents' reports of robberies.
    USAID's governance programs focus on strengthening institutions at 
the national and subnational levels and improving citizens' and civil 
society's public participation. USAID has supported efforts to improve 
delivery of basic services, to incorporate citizen participation into 
public policy, to increase citizens' access to justice, to decrease 
impunity, and to improve governments' capacity to generate and collect 
their own revenue. For example, USAID/El Salvador's tax administration 
and expenditure management programs set up automated audits, one-stop 
shops for taxpayers, improved enforcement of tax policies, which have 
resulted in a 30-percent overall increase in revenue collections from 
2010-2013. In terms of revenue collected as a percentage of GDP, USAID 
has helped El Salvador achieve an increase from 13.5 percent in 2010 to 
15.5 percent in 2014.
    Current USAID economic growth programming in Central America is 
limited in scope. In Guatemala and Honduras, USAID's Feed the Future 
programs promote food security, increase incomes, and enhance nutrition 
by improving production of staple and higher value crops, linking 
producers to markets, and supporting targeted nutrition interventions. 
In Honduras, over 3 years, USAID has helped to double incomes (from 
$0.62/day to $1.21/day) of over 22,000 farming families or 125,000 
people in one of the poorest regions. Programs in El Salvador support 
the Partnership for Growth Joint Country Action Plan and include 
improvements to the business enabling environment, support to small and 
medium enterprises (SMEs), and efforts to boost market relevant skills 
in the labor force. In El Salvador, over 3 years, USAID has helped SMEs 
generate over $57 million in new sales and exports. Central America 
Regional programs are helping to reduce the time and cost to trade 
goods across borders. The Central America Strategy envisions greater 
investments in areas such as promoting regional integration, improving 
the business climate, supporting SME development, creating a productive 
workforce, and reducing poverty.
    The Strategy for U.S. Engagement in Central America broadens 
USAID's vision for how it achieves security. USAID will balance its 
previous and ongoing citizen security-focused investments with 
proportional investments in prosperity and governance. USAID has 
prioritized three interconnected objectives: prosperity, governance, 
and security. A secure, democratic, and prosperous Central America will 
provide an environment in which all of its citizens choose to remain 
and thrive.

    Question. Considering the history of corruption in some Central 
American countries, how does the administration plan to account for the 
$1 billion dollars?

    Answer. My understanding is that all foreign assistance programs 
administered by USAID are required to have oversight processes in place 
to ensure the effectiveness of activities, to monitor funds spent by 
our partners, and to ensure compliance with federal regulations. USAID 
regularly evaluate its activities. Nearly all of its current resources 
are programmed through nongovernmental organizations and development 
companies, which are audited on a regular basis.
    Going forward, I understand the Department of State and USAID 
intend to calibrate assistance in response to real reform efforts to 
send a clear message at the outset that resources will follow reform, 
and that they will reward the countries that are the most serious about 
reform. In my view, USAID programming cannot succeed without the right 
policy environment. Funding flexibility will enable the Department and 
USAID to support programs with the greatest potential and to ensure 
senior U.S. Government officials can press partner governments on the 
needs to make tough reforms.
    USAID is developing a results framework for the U.S. Strategy for 
Engagement in Central America that identifies the key goals the 
strategy will advance. The framework will assess progress on three 
levels: programmatic, political will, and national level trajectory. 
USAID will prepare regular reports for U.S. Government principals to 
inform ongoing policy discussions.
    Programmatic: The Department and USAID use both formal and informal 
methods to continuously monitor and evaluate the performance of its 
programs. A program tracker will allow USAID to determine what works 
and where its programs face obstacles. If necessary, principals will be 
able to intervene in order to accelerate or adjust implementation and 
to remove obstacles.
    Political Will: While the United States is investing significant 
resources, success in Central America is first and foremost dependent 
on the Central American governments themselves taking ownership for 
creating the conditions for positive change in their countries. U.S. 
engagement and the possibility of a new U.S. approach to assistance has 
already leveraged greater efforts by Central American nations, and they 
are solidifying their 2016 budget plans to include significant 
financial contributions to programs. Initial political will indicators 
are derived from the March 3, 2015, Joint Statement between the Vice 
President and the Presidents of El Salvador, Guatemala, and Honduras as 
well as from the ``Alliance for Prosperity.'' This category will 
reflect an ongoing conversation with senior U.S. officials and leaders 
from the region; new indicators will be added based on these 
conversations.
    National Level Trajectory: I believe it is important to bear in 
mind the desired outcome of a deepened and sustained U.S. engagement in 
Central America. While national-level indicators will not likely change 
on a quarterly basis--and may not change year to year--USAID is 
ultimately seeking to advance the most important indicators such as GDP 
growth, poverty rates, homicide rates, and perceptions of corruption 
throughout the region.
    USAID measures good governance in a number of ways, and over the 
long term will rely on indicators from respected organizations such as 
Transparency International, Freedom House and the World Bank. Citizens' 
trust in state institutions, increased collection and effective and 
transparent use of public revenue, and actions by the government that 
hold officials accountable are all indicative of the strength of 
government institutions.
    USAID's prosperity interventions will be measured by such 
illustrative indicators as income levels and the ability of citizens to 
participate in the formal economy.
On Haiti
    Question. The planned funding by USAID for Haiti in fiscal year 
2015 is $274 million. According to foreignassistance.gov, approximately 
$64 million has been obligated in the first 9 months of the year.

  <diamond> Why has less than a quarter of the aid budgeted been spent 
        when many Haitians continue to sit in emergency camps and 
        desperately need our help?

    Answer. As with all of our assistance programs, I believe it is 
critical that we strike the right balance between ensuring that our 
interventions are carried out in a timely manner while also performing 
appropriate due diligence, oversight and planning. I understand that as 
of March 31, 2015, USAID had approximately $1.8 billion available for 
long-term reconstruction and development in Haiti, of which $1.5 had 
been obligated; with disbursements totaling $1.3 billion or 72 percent 
of overall funds provided. In addition, I am told that 100 percent of 
the $1.2 billion provided for humanitarian assistance has been 
disbursed.
    Regarding internally displaced persons, it is important to note 
that, as of March 2015, nearly 94 percent of the 1.5 million internally 
displaced people have left temporary camps for alternative housing 
options. USAID, for its part, provided shelter solutions to more than 
328,000 people through transitional shelters (t-shelters), repairs to 
damaged houses, financial support to host families who housed displaced 
people, and provided short-term rental vouchers to affected families. 
USAID's long-term strategy for the shelter sector is to support cost-
effective ways to increase durable housing stock through private sector 
engagement and urban planning. This includes providing low-income 
households with access to housing finance and better infrastructure, 
and working in existing neighborhoods, and the Government of Haiti to 
expand access to basic services.

    Question. As Haitian nationals are being repatriated by the 
Dominican Republic, is the aid currently being sent sufficient to help 
Haiti resettle these nationals? Or will additional funds be requested?

    Answer. The administration continues to press for a diplomatic 
solution to the repatriation issue that will mitigate the need for a 
humanitarian response related to repatriated persons.
    I understand that USAID is closely monitoring this situation but is 
not at the point of requesting additional funding.
Palestinian steps at the United Nations and the ICC
    Question. On April 1, 2015, the Palestinians formally became a 
member of the International Criminal Court (ICC). Under current U.S. 
law, the administration is required to cut off Palestinian aid if the 
Palestinians pursue or support charges against Israel in a judicially 
authorized ICC case at the ICC.
    The Palestinian Authority has also taken a series of detrimental 
steps at the United Nations over the past year, including an effort 
last year to push for a one-sided United Nations Security Council 
(UNSC) resolution that called for a final agreement within 12 months 
requiring total Israeli withdrawal to the pre-1967 lines by 2017, 
regardless of Israeli security concerns.

  <diamond> If confirmed, will you continue to oppose the ICC's 
        politicization of these issues, as is current U.S. policy?
  <diamond> What impact do you think President Mahmoud Abbas's move 
        should have on current U.S. aid to the Palestinians and 
        America's willingness to provide future assistance?
  <diamond> What role is USAID currently playing in Gaza and what do 
        you believe is the appropriate role for USAID going forward?
  <diamond> There are troubling reports that some of the money that has 
        made it into Gaza for reconstruction has been diverted for 
        continued construction of Hamas terrorist tunnels. Is this 
        true? If confirmed, what mechanisms will you put in place to 
        ensure U.S. aid reaches its intended recipients?
  <diamond> What steps will USAID take to employ proper auditing 
        requirements on aid to the Palestinians? Will you ensure proper 
        strict procedures are in place to ensure U.S. aid reaches its 
        intended targets and is not abused to support Hamas or other 
        Palestinian entities that support violence?

    Answer. I understand that USAID, in conjunction with the State 
Department, continues to review U.S. assistance to the Palestinians. 
Although the administration's view is that the legislative restrictions 
related to Palestinian initiation or active support for an ICC 
judicially authorized investigation have not been triggered to date, we 
are deeply troubled by Palestinian action at the ICC and continue to 
voice our opposition to further actions to both the Palestinians and 
the international community.
    The administration continues to believe that U.S. assistance to the 
Palestinian people is an important tool in promoting regional 
stability, economic development, and increased security for both 
Palestinians and Israelis.
    Since the onset of the July-August 2014 conflict in Gaza, the 
United States has committed more than $231 million in humanitarian 
assistance to Gaza. This assistance has been provided to established 
U.N. and nongovernmental organizations, including the United Nations 
Relief and Works Agency for Palestine Refugees in the Near East 
(UNRWA), the World Food Program, the United Nations Development 
Program, UNICEF, the International Committee for the Red Cross, and 
others. My understanding is that USAID is not currently aware of any 
reports that U.S. assistance for humanitarian aid in Gaza, including 
reconstruction, has been diverted for other purposes. The United States 
takes very seriously any reports of diversion of its assistance, and 
USAID has long required its partners in Gaza to take appropriate steps 
to prevent U.S. funding from being diverted for nonintended purposes.
    Consistent with statutory requirements, USAID has appropriate 
procedures in place to ensure that Economic Support Fund (ESF) 
assistance for the West Bank and Gaza is not provided to or through, or 
diverted to, any individual or entity that is known to be involved in 
or advocating terrorism, including Hamas. USAID's vetting process 
checks non-U.S. individuals and entities within certain thresholds 
against law enforcement and intelligence community systems prior to 
local prime or subaward issuance. Worldwide, USAID requires grantees to 
sign its Certification Regarding Terrorist Financing in order to 
receive funds. In the West Bank and Gaza specifically, the annual 
Appropriations Act requires annual audits of all USAID direct awardees, 
as well as an annual Government Accountability Office audit of the use 
of all ESF assistance. USAID will continue providing humanitarian and 
other assistance to Palestinians in Gaza, in line with the 
administration's national security objectives, and in compliance with 
U.S. law.
    I am committed to strong oversight of and accountability for the 
administration of foreign assistance funds entrusted to the Agency and 
preventing waste, fraud, or abuse, and if confirmed, this will be a top 
priority.
Egypt
    Question. What is the current status of U.S. economic aid to Egypt? 
How can our aid to Egypt be better targeted to strengthen Egyptian 
actors that support democratic ideals? How will economic assistance to 
Egypt be used? Do you support current conditions on U.S. aid to Egypt, 
including the maintenance of the Egypt-Israel peace treaty?

    Answer. U.S. economic aid to Egypt is designed to work across all 
sectors to support and strengthen Egyptian actors who advance 
democratic ideals. Poverty and economic exclusion, when unaddressed, 
inhibit the ability of individuals to invest in their own future and 
make them vulnerable to forces of instability as they struggle to 
provide for their daily needs.
    Economic assistance to Egypt aims to help foster rapid, inclusive, 
and sustainable economic growth. USAID's economic growth programs focus 
on supporting sound macroeconomic management, improving the climate for 
private sector businesses, developing small and medium enterprises to 
create jobs, and promoting bilateral trade. Assistance in the education 
sector will strengthen basic skills in elementary school and adult 
literacy to increase the employability of young Egyptians. The U.S.-
Egypt Higher Education Initiative provides scholarships to economically 
disadvantaged men and women and builds the capacity of Egyptian higher 
education institutions to meet the demands of a modern global economy. 
Programming across sectors in Egypt supports access to quality social 
services, including those related to education and health. Funding also 
aims to strengthen democratic governance in Egypt by working with civil 
society, improving the rule of law and enhancing efficiency of service 
delivery and transparency in government.
    U.S. aid to Egypt across all sectors is targeted to strengthen 
Egyptian actors and institutions that support democratic principles, 
transparency and offer access to government services inclusively to 
Egyptian citizens. USAID works with the Government of Egypt on 
institutional reform initiatives in several sectors in order to improve 
transparency, accountability, and access. For example, to support more 
inclusive economic growth--essential for a stable and democratic 
Egypt--the Agency works with public and private actors to strengthen 
the enabling environment to allow Egyptian firms, particularly smaller 
ones, to take full advantage of profit opportunities in the market. At 
the request of the Government of Egypt, USAID also supports 
decentralization of the Egyptian public sector through work reforming 
Ministry of Finance and Ministry of Planning systems to increase 
transparency and allow for inclusion of Egyptian citizens at the local 
levels, including in budget oversight.This program seeks to identify 
reform leaders in the legal sector in order to build capacity and 
provide Egyptian citizens improved access to justice.
    Support for a vibrant civil society is a cornerstone of any strong 
democracy, and an important priority across the USG, in line with 
President Obama's Stand with Civil Society agenda. USAID works to 
empower Egyptian civil society actors across all sectors of its 
assistance programs, including in education, economic development and 
health. Education programming supports the active leadership role of 
parents in communities through parent teacher associations which allow 
for engagement and advocacy with schools and the government. Through a 
one-stop-shop model piloted by USAID and managed by Egyptian business 
associations, businessowners can register businesses with local 
government in a transparent and efficient manner, which minimizes 
opportunities for corruption. USAID also supports advocacy groups 
working to facilitate the enabling environment for small and medium 
entrepreneurs.
    All of this work helps the USG build productive relationships with 
key public and private actors while supporting the foundations for an 
inclusive, democratic society. If confirmed as Administrator, I will 
ensure USAID's continued commitment to promoting stability through 
fostering rapid, inclusive, and sustainable economic growth and 
essential democracy and governance principles in Egypt.
On Cuba
    Question. Recent media reports indicate that the Cuban Government 
has objected to the use of free Internet and the training of 
independent journalists, pursuant to USAID's democracy programs, at the 
U.S. Interests Section in Havana. Moreover, that this is one of the 
current obstacles in the establishment of diplomatic relations.

  <diamond> a. Can you ensure the committee that the legally mandated 
        U.S. democracy programs will not be restricted or readjusted 
        pursuant to the ongoing negotiations with the Cuban Government?
  <diamond> b. Can you ensure the committee that the legally mandated 
        U.S. democracy programs will not be subject to any preapproval 
        or collaborative process with the Cuban dictatorship?

    Answer. As I mentioned in my testimony, I remain committed to 
programs that promote democracy, empower civil society, and foster 
independent media in Cuba. As you know, the Agency helps facilitate the 
free flow of uncensored information to, from, and within the island, as 
well as provide connectivity to the Internet for the millions who 
remain without access.
    USAID works to promote free expression by supporting independent 
journalists around the world, particularly in closed countries where 
freedom of the press is lacking or independent journalists are under 
threat.
    USAID democracy programs in closed societies around the world, 
including in Cuba, are not and will not be subject to preapproval by 
governments.

    Question. As you are aware, Section 109 of the LIBERTAD Act 
authorizes the use of funds ``to support democracy-building efforts for 
Cuba.'' These include:

    (1) Published and informational matter, such as books, videos, and 
cassettes, on transitions to democracy, human rights, and market 
economies, to be made available to independent democratic groups in 
Cuba.
    (2) Humanitarian assistance to victims of political repression, and 
their families.
    (3) Support for democratic and human rights groups in Cuba.
    (4) Support for visits and permanent deployment of independent 
international human rights monitors in Cuba.

  <diamond> Can you ensure the committee that none of these funds 
        authorized for ``democracy-building efforts'' will be used to 
        support business promotion activities, of any sort, in Cuba?

    Answer. USAID will continue with its traditional program areas of 
humanitarian assistance to political prisoners, marginalized groups, 
and their families, support for civil society and human rights, and the 
free flow of uncensored information to, from and within the island.
    It is my understanding that the Agency does not anticipate 
supporting any new programs focused on business promotion activities. 
If confirmed, I commit to continuing to work with your office as well 
as others in the Congress to ensure the effectiveness and impact of 
these programs.
Supplementary question
    Question. Do you believe that USAID has a role to play in 
supporting a democratic transition in Cuba? If so, what types of 
programs in Cuba would you support as Administrator?

    Answer. My understanding is that USAID will continue to support 
efforts to promote democracy in Cuba, which is in keeping with the 
USG's enduring objective--the emergence of a democratic, prosperous, 
and stable Cuba.
    If confirmed as Administrator, I will support programs for 
democracy, civil society, and independent media in Cuba. These programs 
are consistent with the administration's desire to empower the Cuban 
people to exercise their fundamental civil and political liberties by 
providing humanitarian assistance and support to civil society, and 
through promoting the increased flow of information to, from, and 
within Cuba.
    If confirmed, I commit to continuing to work with your office and 
others in the Congress to further our shared goal of enabling the Cuban 
people to freely determine their own future.
On family planning
    Question. If confirmed, can you guarantee there will be no change 
in USAID's policy toward family planning services? In particular, 
continued strict adherence to the Helms amendment?

    Answer. As you know, this is a complex issue and there are deeply 
held views among a diverse array of stakeholders. This administration 
and I are committed to improving the health and safety of women and 
girls around the globe, including survivors of sexual violence. If 
confirmed, I can guarantee that I will listen to your concerns.
Supplementary question
    Question. Can you clarify your views on existing law? If confirmed, 
will you faithfully execute the law as it pertains to the Helms 
amendment?

    Answer. Let me assure you that, if confirmed as Administrator, I 
will listen to your concerns, I will consult with you and other Members 
of Congress, and I will faithfully execute the law across the full 
range of my responsibilities, including all laws pertaining to 
restrictions on the use of foreign assistance funds.
Supplementary question
    Question. Please elaborate.

    Answer. If confirmed, I will ensure that USAID fully abides by U.S. 
law, including the Helms amendment, which precludes USAID from using 
its resources to pay for the performance of abortion as a method of 
family planning or to motivate or coerce any person to practions.

                               __________
               administrator-designate smith's responses 
                   to questions from senator menendez
    Question. U.S. Assistance is not a blank check, especially not to 
the Palestinian Authority. I am concerned that our assistance seems to 
continue as usual, when the reality is that Palestinian leaders will 
still not commit direct negotiations for a two-state solution and even 
undermine them through maneuvers at the U.N. and the International 
Criminal Court.

  <diamond> What will be your approach to U.S. assistance for the 
        Palestinian Authority and how you will address this with your 
        Israeli and Palestinian counterparts, if confirmed? What 
        changes can I expect to see in how we are reprogramming our 
        assistance in FY15 to make clear that this is not business as 
        usual?

    Answer. Let me begin by saying that the administration is deeply 
troubled by Palestinian action at the ICC and we continue to voice our 
opposition to further actions to both the Palestinians and the 
international community.
    I understand that USAID, in conjunction with the State Department, 
continues to review U.S. assistance to the Palestinians. In FY 2014, I 
understand that a majority of USAID assistance for the West Bank and 
Gaza went to programs that directly support the Palestinian people, 
including humanitarian assistance following the conflict in Gaza. In FY 
2015, USAID programs will focus on sectors that the administration 
believes support our national interest and benefit average Palestinians 
such as education, healthcare and water infrastructure programs.
    Building the institutions of a viable future Palestinian state is a 
core U.S. national security objective and the long-term focus of our 
programs. The administration continues to believe that U.S. assistance 
to the Palestinian people is an important tool in promoting regional 
stability, economic development, and increased security for both 
Palestinians and Israelis.

    Question. Last year Congress unanimously passed the Ukraine Freedom 
Support Act, which authorized assistance in support of democracy, civil 
society, and energy security to Ukraine and throughout in the region. 
The bill authorized $50 mil to help improve Ukraine's energy security; 
$20 mil to strengthen civil society, support independent media, and 
reduce corruption; $10 mil for Russian language broadcasting throughout 
the region; and $20 mil to support democracy and civil society in 
Russia. I would urge the appropriators to fully fund these efforts as 
we look to bolster Ukraine in the face of Russian aggression. I've seen 
reports that there is some apprehension, especially in Europe, but 
perhaps within our own government, to provide more robust assistance to 
Ukraine for fear that it will fall victim to endemic corruption. As the 
lead on this important legislation, I am supportive of this critical 
assistance but it must be held accountable.

  <diamond> How will you work to ensure that our assistance to Ukraine 
        is accountable and transparent?

    Answer. Ukraine remains the USAID'S top priority in the Europe and 
Eurasia region. The Agency continues to allocate resources to support 
the reforms that the Ukrainian Government and civil society have 
prioritized, including anticorruption, local governance and 
decentralization, and deregulation and competitiveness of the private 
sector, especially agriculture and energy reform. USAID integrates 
anticorruption activities into every project design in Ukraine. For 
example, anticorruption measures are included in programs to support 
the judiciary, education, health/pharmaceutical procurement, e-
governance, permitting, financial disclosure, and energy.
    USAID is starting to see progress on implementation of 
anticorruption reforms in Ukraine. More than a dozen key pieces of 
legislation have been passed, including laws to establish the National 
Anti-Corruption Bureau (NABU) and the National Anti-Corruption 
Prevention Agency (NAPC). The Ukrainian Government is in the process of 
standing up these two agencies, which are critical to fighting 
corruption.
    USAID has bolstered monitoring and independent evaluations in the 
region by organizing monitoring workshops for implementing partner 
staff, and contracting for independent evaluations of its programs to 
ensure intended impact, including three such evaluations in Ukraine 
last year. If confirmed, I will continue to ensure that USAID continues 
to build on its efforts to strengthen monitoring and evaluation of the 
Agency's programs, including in Ukraine.

    Question. In light of the recent news reports of human rights and 
labor rights in Southeast Asia, in particular the modern slavery camps 
along the Thai-Malaysian border, and the anticipated completion of 
negotiations on TPP, please provide an account of any USAID labor 
capacity programs and funding that are currently in place to raise the 
labor standards in Malaysia and Vietnam, anticipated TPP partners, and 
Thailand, a prospective TPP partner.

    Answer. USAID works across the Asia-Pacific region to protect and 
promote fundamental human rights, such as the freedoms of expression 
and assembly, to ensure that citizens have a voice and the ability to 
choose their own leaders and influence the decisions that affect their 
lives. These efforts help ensure that the solutions to the challenges 
facing the region ultimately come from the people of the region.
    The Trans-Pacific Partnership (TPP) offers the United States 
Government an opportunity to make progress in human rights, but to also 
help reduce poverty and promote environmental and labor safeguards in 
the Asia-Pacific, a region that is inextricably tied to our own future 
stability and prosperity.
    In Vietnam, the TPP is both strategically important to U.S. 
Government relations with Vietnam, and also very important to Vietnam's 
own development, as it serves as a force for important reforms and 
improved accountability and transparency. As part of broader TPP-
related assistance, USAID's work complements robust technical 
assistance provided by other U.S. Government entities, such as the 
Department of Labor. USAID provides technical assistance to the 
Government of Vietnam and the legal community to increase understanding 
of TPP commitments including international labor standards and the 
enforcement of laws and decrees in areas such as social dialogue, while 
also supporting civil society efforts. USAID continues to closely 
coordinate with the Office of the U.S. Trade Representative and the 
interagency to assess and identify future labor-related assistance 
needs.
    Additionally, through USAID's Global Labor Program, the Agency is 
supporting labor rights across the broader Asia region through programs 
that work to reduce child labor, improve industrial relations, support 
labor monitoring and training in apparel factories, and promote freedom 
of association and collective bargaining. For example in Cambodia, 
USAID supports union leaders and activists and works to improve working 
conditions and protect freedom of association for vulnerable workers in 
the garment, hotel and hospitality, and construction industries. In 
part due to USAID facilitation, garment worker unions negotiated a 28-
percent increase in the minimum wage that was approved in November 
2014. In addition, a new health project in Cambodia focused on garment 
factory workers will improve worker-management dialogue on factory 
compliance with health standards.
    USAID also works to combat labor trafficking, a significant issue 
for the Asia-Pacific, where incidents of migrants on land and sea in 
need of humanitarian protection remain a serious concern for the U.S. 
Government. The Asia-Pacific region also suffers from the largest 
forced labor and sex trafficking market in the world. USAID is working 
to address these issues on several fronts. Through its assistance to 
regional institutions, the Agency stands ready to help Association of 
Southeast Asian Nations (ASEAN) member states meet the standards for 
protection of victims and other areas outlined in the ASEAN combating 
trafficking in persons convention--expected to be endorsed in November 
2015.
    USAID is also addressing issues surrounding labor trafficking in 
the fishing industry through assistance for repatriation and victim 
support services for fishermen, many of whom have spent years working 
on boats in harsh conditions and without pay. Last month, the Agency 
provided such assistance to 59 Cambodian fishermen, who, along with 
hundreds of others from Cambodia, Burma, Laos, and Thailand, were 
rescued after being stranded in Eastern Indonesia. These efforts will 
be supplemented by the new USAID OCEANS project, which will improve the 
conditions of workers in the fishing industry.
    Finally, through regional programming to counter trafficking in 
persons, USAID is continuing a partnership with the International 
Office of Migration to support a project that builds upon years of 
successful interventions to prevent trafficking in persons through the 
use of social media and information and communications technology. This 
project will raise awareness among the general public and inspire 
social action to prevent the most vulnerable from being trafficked.
    All USAID antitrafficking efforts are closely aligned and 
coordinated with prosecution and law enforcement efforts implemented by 
the U.S. Department of State and other governments.

    Question. In light of the anticipated completion of TPP 
negotiations, are any plans in place to meet increased demands on the 
Global Labor Program?

    Answer. I understand that USAID is currently working with the State 
Department to identify any gaps related to programmatic needs and 
resource requirements in this area, and that new activities will depend 
in part on proposals received in response to a solicitation for a new 
5-year program.
    With respect to the USAID Global Labor Program specifically, since 
2011, the program has supported country programs in 10 countries 
(Colombia, Brazil, Mexico, Honduras, Liberia, South Africa, Cambodia, 
Bangladesh, Ukraine, and Georgia), as well as regional and subregional 
programs in Central America/Latin America, southern Africa, south Asia/
Asia, and Eastern Europe. It has strengthened capacity of trade unions 
and other labor-focused CSOs, supported legal representation for 
workers to promote access to justice, and facilitated advocacy on 
gender, labor migration and countertrafficking. If confirmed, I will 
recommit the Agency to ensuring that there will be no gaps in 
programming, the follow-on will be awarded competitively and budget 
permitting, the program will be funded robustly.

    Question. Please provide an outline of the current Global Labor 
Program activities administered by USAID, by country and expenditure--
no detail requested at this time.

    Answer. USAID has a strong tradition of supporting global labor 
programs designed to foster democratic development and inclusive 
economic growth. The Agency's labor programming directly serves these 
priorities by strengthening independent and democratic worker 
organizations and other labor-related civil society organizations, and 
promoting international labor standards. The current Global Labor 
Program is a 5-year (2011-2016) award implemented by Solidarity Center. 
In FY 2015, USAID is programming $7.5 million for work in nine 
countries and also regional and subregional programs in Latin America, 
southern Africa, and South and Southeast Asia. This funding supports 
four thematic research and advocacy programs on gender, migration and 
trafficking, informal work, and rule of law. This core programming is 
supplemented by an associate award in Colombia, administered by USAID/
Colombia.
    The breakdown of expenditures for FY 2015 by country, region and 
for the global thematic programs is as follows:

          Africa regional: $332,661; Liberia: $325,905; South Africa: 
        $810,249; Americas regional: $187,570; Brazil: $626,200; 
        Mexico: $592,708; Honduras: $392,230; Central America 
        subregional: $91,623; Georgia: $562,262; Ukraine: $654,611; 
        Asia regional: $181,620; South Asia subregional: $207,836; 
        Cambodia: $527,427; Bangladesh: $516,102; Global Technical: 
        $816,343; Operating Expenses: $674,653.

    Question. As you know, the labor and environmental chapters of our 
free trade agreements are particularly important to me and a lot of my 
Senate colleagues. But I am afraid that USAID does not take the issue 
of trade capacity-building seriously enough. With the exception of a 
few places where Congress requires it, USAID has chosen to spend little 
or no money called for in our trade agreements to support labor 
capacity-building. USAID has an opportunity to use trade capacity-
building funds to support labor capacity-building within its Global 
Labor Program, which is currently funded only with democracy, rights, 
and governance funding. I need your assurance that trade capacity-
building funds will be used as we intended--to support labor rights on 
the ground with our trading partners who lack the capacity and 
sometimes the will to take that on themselves. I believe we need to 
step up and use trade capacity-building funds to increase USAID's 
Global Labor Program from its current $7.5 million to $10 million.

  <diamond> If confirmed, will you agree to work with my office to 
        ensure that the appropriate funds are disbursed and included in 
        the Global Labor Program so that we can implement the labor 
        provisions in our trade agreements?

    Answer. I strongly share your view of promoting labor rights in the 
context of our trade priorities and if confirmed, I would be pleased to 
work with the committee to see that USAID's Global Labor Program is 
responsive to these priorities.
    I understand that in response to congressional direction to provide 
labor capacity-building support for countries in the Western Hemisphere 
with which the United States has free trade agreements, USAID has 
supported projects that have worked with business and civil society to 
strengthen the demand for effective implementation of labor standards. 
USAID's review of these programs confirmed that the Agency's strengths 
are best deployed in demand-side programming with industry to build the 
case for better labor practices that enhance competitiveness, and with 
civil society to strengthen the ability of workers to play a 
constructive role in monitoring and improving labor standards.
    If confirmed, I will review the current level of funding with your 
recommendation in mind and will consult with the committee as we 
determine the appropriate funding levels for current and future global 
labor capacity building.

    Question. The Review on Antimicrobial Resistance, convened by the 
Prime Minister of the United Kingdom, has projected that of all the 
antimicrobial infections, TB is projected to account for a quarter of 
the 10 million deaths expected from these infections due to 
antimicrobial resistance by 2050. The G7 Group of Counties recently 
highlighted Antimicrobial Resistance (AMR) as a top priority, and there 
is growing momentum for a United Nations High-Level Meeting on AMR to 
be held at U.N. Headquarters in New York in 2016.

  <diamond> Will you commit to working to ensure, if confirmed, that 
        drug resistant tuberculosis (TB) has a prominent place on the 
        agenda of this High-Level Meeting as well as any political 
        declaration coming out of the meeting?

    Answer. Yes, if confirmed as USAID Administrator, I will commit to 
working to ensure drug-resistant TB has a prominent place on the 
agenda. Drug-resistant TB is the one of the largest antimicrobial 
resistance issues globally. If confirmed, I will ensure USAID, as the 
lead U.S. Government agency for international TB, continues to lead 
coordination of U.S. Government global TB efforts, support for global 
initiatives, and support to countries to ensure the further development 
and expansion of quality programs to address TB and drug-resistant TB 
using the best tools and treatments available.

    Question. The White House is leading the development of an 
interagency action plan on drug resistant tuberculosis as a companion 
to the White House's National Action Plan for Combating Antibiotic-
Resistant Bacteria.

  <diamond> How will USAID's contribution to this plan ensure 
        accountability and specify clear and ambitious milestones for 
        reducing drug resistant TB? Will you commit to ensuring, if 
        confirmed, that the USAID proposal specifies the additional 
        funding necessary to reach these milestones and get ahead of 
        the growing crisis of drug resistant TB?

    Answer. The White House action plan on drug-resistant tuberculosis 
(DR-TB) will have clear and ambitious milestones. The plan will build 
on the current USAID TB portfolio and the Global Fund to Fight AIDS, 
TB, and Malaria. TB grants will accelerate progress toward achieving 
the goals laid out in the U.S. Government TB Strategy and contribute to 
the global effort to end the pandemic. USAID will be leading the 
international part of the plan. It will focus on the development and 
implementation of faster and better quality diagnostics and treatment 
regimens, prioritizing countries with the highest burdens of drug-
resistant TB to maximize limited resources and to end TB as a major 
cause of morbidity and mortality, and as a global health security 
threat. The rollout of new drugs and regimens will be critical to 
saving lives and preventing the development and transmission of deadly 
drug-resistant TB. The next step in this fast-track process is a 
stakeholder forum to ensure input from a wide spectrum of partners. 
While I cannot guarantee future funding levels, I will, if confirmed, 
help ensure USAID continues its efforts to curb the epidemic by 
ensuring good quality TB programs that appropriately treat and cure 
patients of the disease, and prevent the emergence and spread of drug-
resistant strains.

    Question. According to Freedom House, after a decade and a half of 
increasing democratic trends, Africa experienced significant 
backsliding between 2005 and 2013. It is clear the White House is 
interested in, and committed to, maintaining good relations with Africa 
as evidenced by initiatives such as Feed the Future, Power Africa, the 
Young African Leadership Initiative, and the Partnership for Growth, 
which includes two African countries. I am concerned, however, that we 
are not focused enough on traditional development priorities, 
specifically in the area of Democracy and Governance.

  <diamond> a. To your knowledge, does USAID have a medium to long-term 
        democracy and governance strategy for Africa? If so, what is 
        it, and does it need to be updated or changed in any way in 
        your estimation?
  <diamond> b. If confirmed, will you commit to work with the committee 
        to devise a robustly funded democracy and governance strategy 
        for Africa?
  <diamond> c. Elections are an important indicator of the democratic 
        health of a country, but support for elections alone does not 
        build the institutions that support democracy. What has been 
        our approach to ensuring the investments we are making to 
        support key elections in Africa, such as those made in Nigeria 
        earlier this year, are followed by programs and activities that 
        help citizens ensure that those they elect are accountable to 
        the people they are supposed to represent?
  <diamond> d. If confirmed, will you commit to ensuring that the 
        elections support we provide in Africa is incorporated into a 
        broader governance strategy?

    Answer. USAID has been a leader in supporting the President's 
policies on human rights and democratic governance as fundamental 
objectives of a whole-of-government strategy toward Africa. I am aware 
that during this administration USAID has issued a new strategy on 
democracy, human rights, and governance. The new strategy codifies a 
more holistic approach to USAID's programming in this sector by 
focusing on participation, inclusion, and accountability, while 
elevating human rights and integration of programming across economic 
and social sectors.
    One of USAID's unique strengths is its field-based orientation, in 
which its missions abroad are the incubators and operational nerve 
centers of its work. With policy guidance and technical support from 
Washington, USAID bilateral missions in Africa develop their own 
multiyear country development cooperation strategies. They do so in 
close collaboration with U.S. Embassy counterparts, host-country 
partners, and often with other donors, foundations, and the private 
sector. To my knowledge, virtually every USAID mission in Africa has a 
medium to long-term strategic objective focused on supporting 
democracy, human rights, and governance. These objectives vary 
significantly based on the specific challenges faced in each country, 
while aligning with the new strategy on democracy, human rights, and 
governance. They can also change over time in response to democratic 
breakthroughs or backsliding.
    For example, in Ghana, one of the models of democratic governance 
in Africa, USAID works in close partnership with national government 
officials and civil society to strengthen local district government 
institutions and improve service delivery. In post-conflict countries 
such as the Democratic Republic of the Congo, USAID programs reconcile 
communities separated by war, support key governance reforms, and help 
extend state authority to the people. In Zimbabwe, under constant 
threat of closing political space, USAID and its partners provide 
critical support to human rights defenders and civil society activists 
who are trying to maintain their basic freedoms.
    And in Nigeria, as well as more than a dozen other African 
countries, USAID focuses and concentrates its resources to ensure that 
election assistance is embedded in long-term democracy, rights, and 
governance strategies. Doing so allows USAID to support reformers who 
can seize the window of opportunity provided by free, fair, and 
credible elections to promote policy changes, strengthen governance 
institutions, expand basic freedoms, and improve the systems of checks 
and balances that hold leaders accountable to the people who elected 
them.
    In my estimation, USAID's current process for achieving its 
democracy strategy in Africa is appropriate: setting broad policy and 
strategy goals in Washington, and allowing USAID missions to develop 
their own country-specific responses to achieving those goals, for 
which they are then held accountable. I also believe that USAID's 
election assistance programs are most effective and appropriate as part 
of a holistic democracy, human rights and governance strategy.
    If confirmed, I will make this area one of my priorities and I look 
forward to working with Congress to maximize the impact and 
effectiveness of this program.

    Question. As I am sure you are aware, I have been working with 
State Department and USAID to ensure that our Foreign Service 
adequately represents the diversity of our population. With 18 months 
left in this administration, do I have a commitment from you that you 
will make recruitment and retention of diverse candidates a priority at 
USAID?

    Answer. Recruiting and retaining a diverse and skilled workforce is 
critical to meeting the mission of USAID, and is of great importance to 
me personally. If confirmed as Administrator, I will work with USAID 
leadership to strengthen efforts to ensure that USAID's workforce is 
reflective of our population.
    I am pleased that the 2015 Quadrennial Diplomacy and Development 
Review (QDDR) specifically addresses the need to increase our diversity 
and provides specific focus areas that I fully support. These areas 
include enhancing work requirements for USAID managers about the need 
to foster diversity and inclusion in the workplace, increasing outreach 
to our veterans, sustaining the numbers of fellowships offered, and 
initiating an early identification program, focusing on students from 
underrepresented communities who have an interest in public service.
    USAID is engaging in targeted outreach activities and programs that 
are focused on building a diverse workforce, which I will look to 
support and expand. This outreach is designed to increase the diversity 
of applicants who apply for direct-hire positions at USAID, as well as 
to other qualified applicants who may apply through the Disability 
Employment Program, the Veterans Employment Initiative, and USAID's 
Internship Program.
    The Donald Payne International Development Fellowship Program 
(Payne Fellowship Program) has resulted in three classes of fellows 
with a highly diverse representation. These fellows enter USAID's 
Foreign Service upon completion of the program.
    If confirmed, I will work with USAID leadership to improve 
retention of diverse employees (and all employees) through several 
actions including: (1) increasing training for managers and employees 
tailored specifically to the issues of diversity and inclusion; (2) 
implementing exit interviews and surveys to provide the Agency with 
data regarding why employees resign, as well as their impressions of 
diversity and inclusion at USAID, so that the Agency can take 
appropriate action; and, (3) piloting programs that focus on diversity 
and inclusion, such as the Office of Personnel Management's Diversity 
and Inclusion Dialogue Program.
    If confirmed, I am committed to making recruitment and the 
retention of diverse candidates a high priority of my tenure with 
USAID.

    Question. I am very concerned by the state of civil society in 
Egypt. At a time when analysts are reporting that the suppression of 
nonviolent political dissent in Egypt is now worse than at any time 
during the Mubarak regime, only $5 million out of a total of $150 
million in Economic Support Funds to Egypt is designated for democracy 
and governance in the administration's FY 2016 request. In comparison, 
the administration has requested $47 million for democracy and 
governance programming in Jordan, a country whose population is roughly 
8 percent of Egypt's.

  <diamond> If confirmed, how would you be able to support democracy 
        and governance in Egypt and counter the erosion of civil 
        society there, given the subject's seemingly low priority in 
        the administration's budget request?

    Answer. USAID resources in Egypt are targeted toward supporting 
democratic principles and civil society across all sectors. The Agency 
works to empower Egyptian civil society actors throughout its 
assistance program, including in education, economic development and 
health. USAID programming works to reinforce democratic principles, 
transparency and provide access to government services by all parts of 
Egyptian society. USAID supports decentralization of the Egyptian 
Government through work reforming the Ministry of Finance and Ministry 
of Planning systems to increase transparency and allow for inclusion of 
Egyptian citizens at the local levels, including in budget oversight. 
This program seeks to identify reform champions in the legal sector and 
provide Egyptian citizens improved access to justice. Education 
programs support the active leadership role of parents in communities 
through parent/teacher associations which allow for engagement and 
advocacy with school principals and local government officials. Through 
a one-stop-shop model piloted by USAID and managed by Egyptian business 
associations, businessowners can register businesses with local 
government in a transparent and efficient manner, which minimizes 
opportunities for corruption. USAID also supports advocacy groups 
working to facilitate the enabling environment for small and medium 
entrepreneurs.
    While advancing certain democracy, rights, and governance issues is 
a challenge in the current environment, USAID is moving forward with a 
significant direct grants program to advance the role of civil society 
in promoting human rights. Civil society organizations are working to 
combat gender-based violence, promote women's empowerment, counter 
trafficking in persons, promote religious tolerance, and support rights 
of people with disabilities. Bilateral programs include support to 
civil society organizations that promote youth empowerment and youth 
engagement in leadership roles in the communities in which they live. 
For example, civil society organizations offer students the opportunity 
to participate in programs that promote youth values of tolerance and 
peace within the Egyptian identity and teach principles of sustainable 
development and citizenship.
    If confirmed as Administrator, I will ensure USAID's continued 
commitment to promoting essential democracy and governance principles 
in Egypt as consistent with President Obama's Stand with Civil Society 
agenda.

    Question. Continued progress in Tunisia's democratic transition is 
critical and economic reform will be essential to the ongoing success 
of that transition. Tunisia needs assistance in building a regulatory 
environment that facilitates both foreign and domestic investment, 
especially in providing access to capital for small- and medium-sized 
enterprises.

  <diamond> In your view, how can U.S. assistance most effectively help 
        create this environment? If confirmed, how will you prioritize 
        this assistance?

    Answer. I share your interest in ensuring that the U.S. Government 
provides robust and targeted assistance during this critical period in 
Tunisia's history. I believe Tunisia demonstrates great potential for a 
successful transition, and last year, USAID reopened its office in 
Tunis after 20 years--a clear demonstration of the U.S. Government's 
continued support for a democratic Tunisia.
    USAID is supporting the Government of Tunisia's economic reform 
agenda in tax and customs policy which will help create a more 
attractive investment climate for both domestic and international 
investors. During President Caid Essebsi's visit, Secretary of Commerce 
Pritzker convened a roundtable of CEOs from top U.S. corporations, 
including Google, Bechtel, and General Electric. Encouraged by the 
Government of Tunisia's progress, U.S. companies are poised to take 
advantage of investment opportunities in Tunisia. Additionally, USAID's 
work with the Government of Tunisia on customs policy reform will 
advance the implementation of the World Trade Organization's Agreement 
on Trade Facilitation (Bali, 2012) which expedites the movement, 
release and clearance of goods.
    USAID programs support the Tunisian people as they lay the 
foundation for economic prosperity and democratic governance. USAID is 
creating job opportunities for Tunisian youth by helping small- and 
medium-sized enterprises to increase productivity and expand 
employment; and then matching and coaching young Tunisian men and women 
to fill these new jobs. USAID is also providing financing to small- and 
medium-sized enterprises through the Tunisian-American Enterprise Fund.

    Question. Hundreds of thousands of Christians, Yezidis, and other 
religious minorities have been made homeless by ISIL's depravity and 
continue to live as displaced persons without adequate access to 
shelter, food, medical care or education. Many women from these 
communities have been kidnapped and subjected to horrific sexual 
violence.

  <diamond> If confirmed, how will you work with host governments to 
        ensure that assistance reaches these communities and that 
        survivors of sexual violence at the hands of ISIL are given the 
        help they need to rebuild their lives?

    Answer. USAID strives to include and be sensitive to the needs of 
religious and ethnic minorities in all of its programming. All U.S. 
Government humanitarian assistance is delivered on an impartial basis 
and is open to every household and community in acute need, regardless 
of ethnicity or faith. If confirmed as USAID Administrator, I will 
ensure that the Agency continues to uphold these principles.
    In both Syria and Iraq, USAID humanitarian assistance is provided 
on a countrywide basis and is focused on the populations in greatest 
need who can be reached by the Agency's humanitarian partners. USAID 
has provided over $2 billion in humanitarian assistance for displaced 
Syrians since fiscal year 2012 and nearly $76 million in humanitarian 
assistance for displaced Iraqis since the start of FY 2014.
    In Syria, USAID humanitarian assistance reaches into all 14 
governorates and 63 districts, including those in which religious 
minority communities reside or are hosted as internally displaced 
persons (IDPs). In Iraq, the majority of humanitarian assistance is 
provided to address acute needs among the IDP population in the Iraqi 
Region of Kurdistan (IRK), which accounts for over 40 percent of that 
country's total displaced population. For example, approximately 70 
percent of all humanitarian aid provided by USAID's Office for U.S. 
Foreign Disaster Assistance since FY 2014 has served Iraqi IDPs in the 
IRK--where the majority of displaced Iraqi religious minorities are 
seeking shelter.
    USAID humanitarian assistance inside Syria and Iraq is focused on 
provision to vulnerable IDPs of food and other relief commodities, 
shelter (including repairs), water and sanitation, health care, 
education, protection (including specialized services for women, 
children, and survivors of sexual and gender-based violence), and 
humanitarian coordination and logistics.
    In all its programs in Syria and Iraq, the Agency strives to 
address the protection needs of the most vulnerable--including women, 
girls and boys in displaced communities. For example, in Iraq, USAID 
supports humanitarian assistance programs that both mainstream 
protection and deliver direct, specialized services to vulnerable 
communities.
    Specific activities include recruitment of female health workers, 
to ensure health services are equally accessible for women and girls as 
well as men and boys, mobile ``child-friendly'' spaces and psychosocial 
first aid for traumatized children, emergency aid focused on the 
immediate needs of pregnant women in vulnerable conditions, and 
provision of specialized counseling and referral services to survivors 
of sexual and gender-based violence.
    USAID has also provided funding to the International Organization 
for Migration (IOM) to support its wider protection activities, which 
reached nearly 1 million IDPs in Iraq. As a component of outreach to 
the wider IDP population, this included direct psychosocial support to 
Christian and Yezidi IDPs in transit sites in northern Iraq.
    In those neighboring countries hosting large numbers of displaced 
Syrians and Iraqis, USAID's nonhumanitarian programming also seeks to 
address the needs of religious minority communities within the context 
of the wider crisis. The Agency views inclusion of minorities as a key 
component of advancing democracy and stability.
    For example, I understand that since 2007 USAID has provided over 
$40 million in economic and development assistance directly benefiting 
Iraq's minority communities including Christian, Yezidi, Shabak, and 
Sabean-Mandaean groups. The Agency's Jordan community engagement 
program works with communities hosting Syrian refugees, and, in Egypt, 
USAID works with faith-based organizations to promote religious 
tolerance and diversity.
    In addition, USAID has hosted various delegations of Iraqi 
religious minorities to discuss and coordinate the U.S. Government 
humanitarian response to their displacement as a result of ISIL 
actions. This has included, inter alia, representatives of the 
Assyrian, Chaldean, Orthodox, Catholic, and Yezidi communities. In the 
field, USAID humanitarian assistance teams meet regularly with 
representatives of ethnic and religious minority diaspora and local 
groups serving displaced communities, as well as with international 
partners serving IDPs. They also coordinate closely with the U.N. and 
relevant government institutions in Iraq and those host countries for 
displaced Syrians and Iraqis in order to ensure all IDP communities' 
needs are taken into account.

    Question. In 2011 the Arab Spring protests and calls for nonviolent 
reform offered tremendous hope for the potential of the Middle East 
region. Four years later we face a long, cold winter with many states 
reverting to old bad habits of closing off all avenues for nonviolent 
political expression or economic opportunity. Worse yet, we are facing 
failed, or close to failing, states in Yemen, Libya, and Syria. In the 
face of such unpredictability, instability, and violence the U.S. 
diplomatic presence and USAID field offices have been forced to draw 
down or close. In other areas, governments are actively confronting 
USAID funded programs and projects.

  <diamond> How are you thinking about U.S. assistance and development 
        engagement in the Middle East and North Africa against this 
        depressing and alarming backdrop? Do we need to change the way 
        we do business, or the missions we pursue, in the region?

    Answer. USAID works with local and international partners to 
address the tremendous needs in the Middle East and North Africa. USAID 
recognizes that capable and accountable governance institutions are 
crucial to the sustainability of our development investments, which is 
why the Agency seeks to integrate democracy, human rights, and 
governance principles and practices across all programming.
    USAID's approach in the Middle East is twofold; the Agency works 
not only with governments, but also at a grassroots level, changing the 
lives of individuals and transforming communities. USAID works closely 
with national governments where that is possible, and where national-
level governance institutions are lacking, at the local level, with 
municipal councils or local civil society, to help meet the immediate 
needs of the people in the region as well as build sustainable local 
governance structures that can support a move to resilient democratic 
societies. Local- and municipal-level governance issues are an 
increasingly important component to USAID's work in the region, 
especially in communities affected by conflict and crisis. Key elements 
in all USAID programs are a deep analysis of the political context, 
supporting citizen engagement in policymaking and service delivery, and 
promoting the rights of all citizens and groups to ensure equitable 
development gains. USAID programs represent a long-term investment in 
the people and communities of the Middle East and North Africa and 
build on the Agency's mission to partner to end extreme poverty and 
promote resilient, democratic societies while advancing our own 
security and prosperity.
    USAID is constantly reassessing the way it does business and the 
specific programs in which it invests. Each country and regional 
program begins with a careful assessment of local needs and capacity 
for reform. Once programs are implemented they are carefully monitored 
and evaluated for effectiveness and lessons learned. Security concerns 
remain a significant challenge, and the security of USAID staff and 
implementing partners is paramount. In places where USAID has no 
direct-hire staff on the ground, the Agency uses local and 
international partners as well as remote management techniques to 
continue and ensure close oversight of USAID programs.
    If confirmed, I look forward to working with the Congress and our 
implementing partners to maximize the efficacy and impact of our work 
in the Middle East and elsewhere throughout the world.

    Question. In response to the question about USAID's contribution to 
the U.S. Government TB strategy, you mentioned that you would ``help 
ensure USAID continues its efforts to curb the epidemic by ensuring 
good quality TB programs that appropriately treat and cure patients of 
the disease, and prevent the emergence and spread of drug-resistant 
strains.'' As its contribution to the interagency action plan on drug-
resistant tuberculosis, the Centers for Disease Control and Prevention 
submitted recommendations that clearly identify the funding needed to 
carry out the activities.

  <diamond> Has USAID identified funding needs, given the objectives of 
        the plan? If not, why not?
  <diamond> How meaningful can a strategy be unless resources needs are 
        identified, to enable the agency to not only continue efforts 
        but intensify them and rapidly build country capacity to have a 
        much greater impact on TB?

    Answer. The White House National Action Plan on multidrug resistant 
tuberculosis (MDR-TB) will have clear and ambitious milestones. USAID 
will lead the international component of the plan, building on the 
current USAID TB portfolio and the Global Fund to Fight AIDS, 
Tuberculosis, and Malaria. It will focus on the development and 
implementation of faster and better quality diagnostics and treatment 
regimens, prioritizing countries with the highest burdens of drug-
resistant TB to maximize limited resources and end TB as a major cause 
of morbidity and mortality and as a global health security threat. The 
rollout of new drugs and regimens will be critical to saving lives and 
preventing the development and transmission of deadly drug-resistant 
TB.
    The process includes critical opportunities to receive feedback 
from the broader global health community, including a stakeholder 
forum, on important aspects to include in the plan. Guided by the 
strategy, stakeholder feedback, and data and evidence, USAID will do 
its part to identify the resources needed to implement the plan and 
focus on how to maximize the effectiveness of those resources. However, 
combating TB is a global problem and a shared responsibility that 
requires commitments from other donor partners and countries themselves 
to do more. As I testified, it is also critical to mobilize other 
countries to do more in this area--both with respect to TB and to 
health systems more broadly. If confirmed, I will play a leadership 
role in this regard and ensure that USAID continues its efforts to curb 
the epidemic by ensuring good quality TB programs that appropriately 
treat and cure patients of the disease, and prevent the emergence and 
spread of multidrug resistant strains.

                               __________
               administrator-designate smith's responses 
                    to questions from senator flake
    Question. In addition to the devastating loss of life and breakdown 
of the affected countries' health care systems, we have seen the 
economies of these countries near collapse as economic activity ground 
to a halt, investors and contractors fled, farming ceased, and building 
and maintaining of key infrastructure projects was suspended. As 
private investments in airports, roads, seaports, and electricity 
generation and distribution will be vital to for economic recovery, 
what is USAID doing in these areas to reinvigorate private economies 
that will be necessary for the long-term stability of affected 
countries?

    Answer. Having coordinated the USG's international response to the 
Ebola epidemic while at the National Security Council, I am personally 
committed to working in the Ebola-affected countries to help 
reinvigorate their economies, using both Ebola emergency funds and base 
development assistance funds. If confirmed, I will ensure USAID 
continues these important efforts. Examples of USAID's support to 
revive the economies of the Ebola-affected countries include:

  <diamond> Through the Power Africa Initiative, USAID is engaging in a 
        variety of areas that will improve electricity generation and 
        distribution.

      <all>  USAID/Liberia replicates appropriate scale private models 
            to supply energy to unserved rural areas through the design 
            and build of small-scale facilities that demonstrate 
            renewable energy technologies. This work is buttressed by a 
            cooperative agreement with the National Rural 
            Electrification Cooperative of America (NRECA), which is 
            working with rural communities to manage electrical 
            generation and distribution.
      <all>  USAID/Liberia is working to engage in active diplomacy and 
            dialogue with local governments, other donors, and their 
            implementing partners to encourage and facilitate the rapid 
            completion of work on the Mt. Coffee hydropower station; 
            three new power plants to add 38 MW of affordable 
            electricity to the grid; the extension of the West Africa 
            Power Pool; and other key public sector infrastructure 
            projects.
      <all>  USAID/Liberia is working with local banks to demonstrate 
            the business case for affordable, sustainable, renewable 
            energy solutions beyond the grid. Furthermore, USAID 
            technical assistance has helped with the development of 
            draft legislation that will allow for the entry of private 
            sector actors in generation and distribution.
      <all>  USAID/Guinea is exploring public private partnership (PPP) 
            opportunities in the energy sector in both Guinea and 
            Sierra Leone through collaboration with the member agencies 
            in Power Africa.

  <diamond> In addition, USAID is supporting efforts to rebuild 
        critical infrastructure in the Ebola-affected countries in 
        order to attract private investment and improve the lives of 
        those impacted by the crisis.

      <all>  USAID/Liberia is working to rehabilitate rural farm to 
            market roads and build the capacity of the Ministry of 
            Public Works to maintain them, which will stimulate broader 
            private sector activity in agricultural value chains, 
            including transportation and marketing.
      <all>  In all three countries, USAID is supporting investments in 
            digital infrastructure by working with donors and partners 
            to adopt a ``dig once'' strategy for appropriate road 
            construction projects intended to reduce the combined costs 
            of road construction and broadband connectivity access and 
            advancement. Investments in digital infrastructure support 
            roads, airports, seaports, and electricity generation.
      <all>  Through advancement in e-payments platforms, USAID/Liberia 
            is working to enable and increase ease of payments for on-
            grid electricity, as well as pay-as-you-go models in all 
            three countries using emergency funds. In order to advance 
            infrastructure, policy reforms are required to support the 
            development of public-private partnerships (PPPs) across 
            all infrastructure. USAID is collaborating with multiple 
            teams and stakeholders to define a combined vision and 
            requirements for the affected country governments in order 
            to catalyze and spur PPPs that will create infrastructure 
            growth.
      <all>  USAID/Liberia's efforts to increase access to potable 
            water in three cities will contribute to a healthier and 
            more productive workforce attractive to the private sector, 
            as well as facilitate development of industry and 
            agriculture in those locations.
      <all>  USAID/Liberia and partners are completing the construction 
            of 85 kilometers of feeder roads in support of other USG-
            funded agricultural activities designed under the Feed the 
            Future Initiative and food security programs.

  <diamond> USAID is also actively engaging the private sector to 
        leverage their ideas and encourage private sector investment in 
        the three affected countries.

      <all>  USAID recently published two new calls for proposals under 
            its Global Development Alliance that focus on all three 
            countries to prioritize coinvestment with the private 
            sector to harness ideas, capacity, and private resources to 
            bolster economic activities and investments in 
            infrastructure, improve local health systems, and promote 
            global health security, all of which are aimed at 
            accelerating recovery and building resiliency in the West 
            African communities affected by the Ebola epidemic.
      <all>  In addition, the Agency seeks to harness capacity and 
            resources from the local, regional, and international 
            private sector around partnerships that strengthen 
            information and communications technology, energy 
            infrastructure, social programming, health care, and 
            education.
      <all>  Through the Feed the Future initiative, the Agency is 
            working to engage the infrastructure, and resources of the 
            private sector, foundations, and other partners, including 
            in-country partners, to foster broad-based food security in 
            the short, medium, and long term.
      <all>  The PPP strategy in 2015 focuses on reestablishing private 
            sector confidence to resume business operations through 
            continuous communication and updates about market 
            conditions. USAID is also providing technical assistance to 
            help Liberia develop a PPP policy that will attract 
            investment across a range of industry and infrastructure 
            projects.

                               __________
               administrator-designate smith's responses 
                    to questions from senator perdue
On Smith's priorities
    Question. Assuming you are confirmed, you will only have 18 months 
in office once you come into office, and there are certainly a host of 
issues you could dive into. Can you talk about some of these priority 
areas where you would really like to make a change?

    Answer. Should I have the honor of being confirmed, I will pursue 
four priorities.

    (1) If confirmed, I will focus the Agency on programs that are 
achieving results and will be selective about initiating new 
commitments. I will work with Congress to institutionalize successful 
programs, including Feed the Future, Power Africa, and our efforts in 
maternal and child health.
    (2) If confirmed, I will provide the leadership, guidance, and 
tools needed to enable USAID's staff in Washington and the field to 
deliver against our most urgent priorities. This includes expanding the 
Agency's work and impact on democracy, rights, and governance. This 
also means expanding the Agency's impact on human trafficking and 
corruption, laying the groundwork for the success of a critically 
important strategy for Central America, and ensuring an equally 
important transition in Afghanistan.
    (3) If confirmed, I will act quickly to ensure that the Agency 
maintains global leadership and agility in responding to increasingly 
complex humanitarian crises around the world. When a natural disaster 
strikes or a humanitarian catastrophe is imminent, the Agency is and 
should be among the first on the ground to help those in need, and in a 
world rife with crises, I believe it is critical to ensure that the 
Agency remains one step ahead.
    I will also work with this committee and other stakeholders to 
pursue meaningful food aid reform that will enable us to reach more 
people, more quickly, in times of need--all while maintaining our 
historic partnership with U.S. farmers and maritime.
    (4) If confirmed, I will focus on further strengthening the 
institution. That means building on the reform agenda launched by 
Administrator Rajiv Shah. This will involve expanding the capacity of 
the Agency to mobilize resources and engagement from other partners; to 
draw on science, technology, and innovation to address development 
challenges; and to increase investment in effective local solutions.

    Strengthening the institution involves tackling some of the 
management and operational challenges facing an agency that manages 
resources across over 80 countries, often in complex environments. The 
Agency must ensure that American taxpayer dollars are spent 
responsibly. It must identify successful programs, learn from prior 
mistakes, apply lessons learned, and share best practices--all in an 
open and transparent way. If progress is not being made, it must take 
corrective action or terminate projects.
    Strengthening USAID also means supporting and listening to its 
people, both here in Washington and overseas. These are men and women 
with knowledge, institutional memory, and invaluable insight. It is my 
goal to give them the visibility, respect, and gratitude that they 
deserve.
On leveraging partners to make American aid go further
    Question. Ms. Smith, how do you recommend we use our leadership to 
work with other nations to do more?

    Answer. If confirmed, I will encourage other nations to join USAID 
in addressing the world's development and humanitarian challenges--
especially in this time of unprecedented need when no country can--or 
should--singlehandedly meet global demands.
    Leveraging our development resources is a key step to successfully 
achieving USAID's goals as a 21st century development agency. If 
confirmed as Administrator, I will work with USAID leadership to more 
deeply integrate partnership and leveraging of external resources into 
USAID program design and implementation.
    Using U.S. development assistance in a way that catalyzes 
additional financing for development from other countries, the private 
sector, multilateral institutions, and foundations is a key pillar of 
the U.S. approach to development, as is the recognition that 
sustainable development requires host-country buy-in and leadership. 
These elements are embodied in initiatives such as Power Africa and 
Feed the Future. They are also core priorities for the U.S. Government 
heading into the Third U.N. Conference on Financing for Development in 
July.
    I am aware that USAID has progressed substantially over the last 
several years in developing closer coordination with a number of other 
international donors. Sweden, the United Kingdom, and Australia have 
become even more important partners. If confirmed, I will continue to 
support and expand these relationships as a priority.
    At the invitation of President Obama, the Government of Sweden 
recently committed $1 billion to Power Africa, an initiative to double 
access to energy in sub-Saharan Africa. The early success of Power 
Africa--transactions expected to generate more than 4,100 megawatts 
have already reached financial close--played a critical role in 
securing Sweden's commitment. If confirmed, I will ensure that USAID 
uses this power of example to bring in more donors for Power Africa and 
other successful initiatives.
On effectiveness and efficiency of aid
    Question. I certainly understand that if our efforts in assistance 
are a mile wide and an inch deep, we will not be very effective.

  <diamond> How do you plan to focus in certain areas to make our aid 
        go the furthest?
  <diamond> What will your methods be for determining where to double 
        down on American aid so we can achieve maximum impact?

    Answer. Focusing resources--both financial and staffing--in 
priority countries is essential for maximum impact. If confirmed as 
Administrator, I will strengthen the Agency's Selectivity and Focus 
process. This process was launched in 2012 in response to Presidential 
Policy Directive (PPD-6), which mandated that the Agency focus 
development efforts by being more selective about the countries and 
sectors in which it works. Since 2010, the Agency's efforts in 
Selectivity and Focus have reduced the number of sectoral program areas 
by 40 percent, enabling country missions to be more focused on top 
priority activities.
    If confirmed as Administrator, USAID will continue to make hard 
choices about how to allocate attention and resources across countries, 
regions, and sectors. Under my leadership, if confirmed, the Agency 
will closely consider issues of fragility and weigh the impact and 
potential savings of investing in resilience. It will continue to 
concentrate resources through better alignment of staffing and funding 
in support of those countries and programs that yield the greatest 
impact. Further, I will continue to strengthen the use of Country 
Development Cooperation Strategies (CDCS) to ensure analysis of changes 
in country situations and status in the medium term, and support 
evaluations and interim Agencywide assessments to inform decisions 
about adjustments in resource allocations.

    Question. A recent Office of Inspector General's report noted that 
Presidential initiatives--not just Congressional Earmarks--are 
stymieing USAID Missions from allocating the correct type of funding to 
meet needs identified in country as the most important. Ms. Smith, as a 
development expert, you know the importance of ``country ownership'' 
and ensuring our assistance programs are actually reflecting the top 
priorities of the countries in which USAID works.

  <diamond> If confirmed as Administrator, what would you do to ensure 
        that priorities identified at the mission level are 
        incorporated into final budget submissions to Congress and that 
        Presidential initiatives--while important--do not distort the 
        type of assistance USAID ends up providing to countries?

    Answer. I understand that it is a critical priority at USAID to 
ensure that its missions receive the funding they need, despite the 
constrained budget environment in which they operate. If confirmed as 
Administrator, I will continue to refine our planning and strategy 
processes and ensure that mission priorities are integrated into our 
budget development process.
    I believe that it is important to the national security of our 
country that USAID continues to be a global leader in addressing the 
world's most critical development challenges. If confirmed, I will work 
to ensure that these efforts are mutually reinforcing with the local 
priorities specific to a country or region, and reflect the on-the-
ground knowledge and expertise of the Agency's field staff.

    Question. What percentage of your budget is spent on overhead 
versus directed to assistance? Are there efficiencies that can be found 
in overhead savings?

    Answer. Based on my initial briefings, I understand that in FY 
2015, the Agency's Operating Expense (OE) appropriation accounted for 
approximately 6.2 percent of its total program budget.
    I understand that USAID continues to implement ambitious 
operational reforms to improve management processes and achieve 
efficiencies in areas such as information technology, travel, real 
property disposals, insourcing, and space optimization. If confirmed, I 
am committed to reviewing these as well as other areas where we might 
identify additional efficiencies.
On increasing transparency
    Question. USAID has committed to improving transparency in 
government.

  <diamond> What are your plans for improving the quality and 
        availability of data about USAID spending, so that anyone can 
        trace each dollar right down to the specific project or 
        activity where it is spent?

    Answer. Aid transparency is essential for helping recipient 
governments manage their aid flows, for empowering citizens to hold 
governments accountable for the use of assistance, and for supporting 
evidence-based, data-driven approaches to foreign aid.
    The administration has placed great emphasis on transparency and 
openness across the government and USAID is taking a leading role in 
helping the U.S. Government further its commitment to enhancing aid 
transparency as a way of increasing the efficacy of development efforts 
and promoting international accountability. In October 2014, USAID 
released its first ever Open Data policy and regularly posts datasets 
to www.usaid.gov/data.
    If confirmed as Administrator, I will work with USAID leadership to 
advance efforts that are currently under way to increase the 
transparency of our funding and programming, on both the development 
and humanitarian fronts. In particular, if confirmed, I am committed to 
increasing the number and quality of evaluations posted online, as well 
as regularly posting more and improved data to the International Aid 
Transparency Initiative (IATI) and ForeignAssistance.gov.
On results-driven aid
    Question. Can you tell us what systems should be in place to ensure 
that foreign aid evaluations are used to feed back into the loop? To be 
used to guide program design and policy decisionmaking?

    Answer. USAID has established systems to ensure that quality 
evaluations are undertaken and that results are used for program 
improvements and redesigns. If confirmed as Administrator, I will work 
to elevate the quality and use of monitoring and evaluations in USAID. 
I will also ensure that new officers continue training in evaluation, 
monitoring, and integrating findings to ensure impact.
    It is my understanding that between 2011 and 2014, USAID trained 
over 1,400 USAID staff in sound evaluation methods and practices, 
created templates and tools to support evaluation design and 
performance management plans, and worked with missions to implement an 
approach that allows for collaboration with partners and adaptation of 
projects based on learning. During that time, over 950 evaluations have 
contributed to evidence-based decisionmaking by missions and operating 
units.
    I also understand that USAID is undertaking an independent 
evaluation to examine evaluation utilization across the Agency, which 
will provide rich data on trends and practices in evaluation use. This 
study is due to be completed in September 2015.
    If confirmed, I will focus on this critically important aspect of 
USAID programming and ensure that evaluations are used to inform budget 
decisions, project design changes, and midcourse corrections in 
development programming.

    Question. What steps will you take to ensure that these evaluations 
are high quality and transparent?

    Answer. USAID released an extremely rigorous Evaluation Policy in 
2011, which seeks to ensure high-quality and transparent evaluations. 
The Evaluation Policy established protocols and procedures for ensuring 
that all USAID evaluations are transparently conducted, unbiased, 
integrated into project design, relevant for decisionmaking, 
methodologically sound, and oriented toward reinforcing local capacity.
    It is my understanding that the USAID Evaluation Policy has 
institutionalized several additional safeguards to ensure a commitment 
to unbiased measurement and reporting, as well as to promote 
transparency. For both internal and external evaluations, statements of 
work/terms of reference and draft evaluation reports must undergo a 
peer review, which is aimed at increasing quality and transparency. In 
addition, evaluation team members must submit disclosure of conflict of 
interest forms which are part of the final evaluation report. Lastly, 
findings from external and internal evaluations must be publicly shared 
via the Development Experience Clearinghouse (DEC) online data system.
    If confirmed as Administrator, I will ensure continued 
implementation of this policy and periodic assessments to verify its 
continued effectiveness.
On USAID reforms
    Question. As you know, former USAID Administrator Shah initiated 
reforms in 2010 under a program called USAID Forward. In your view, 
what have been the most lasting results of the USAID Forward reform 
effort?

    Answer. Although the USAID Forward reform agenda was launched by 
former Administrator Rajiv Shah in 2010, I understand that many 
elements of what became USAID Forward were proposed at a conference of 
career Mission Directors that was conducted with the participation of 
senior Agency leadership in November 2009. This early investment in, 
and continuing ownership of, the reforms by USAID's senior career 
officers is a key ingredient for ensuring the sustainability of these 
reforms.
    I believe that through USAID Forward's focuses on results, 
partnership, and innovation, the Agency has significantly strengthened 
its capacity in each of these areas over the past 5 years. USAID now 
has in place a rigorous and transparent process for designing 
strategies and projects while evaluating their impact to achieve 
results in a more focused and selective manner. Its partnership agenda 
has grown substantially, almost doubling the amount of direct work with 
local partners, as well as significantly increasing its partnership 
with the private sector, particularly small businesses. Moreover, USAID 
has greatly increased its emphasis on innovative approaches through the 
use of science, technology, and open innovation through such platforms 
as the Development Innovation Ventures (DIV) and Grand Challenges for 
Development, which have been incorporated into the Agency's Global 
Development Lab. Each of these reforms under USAID Forward is already 
demonstrating a strong, durable impact on USAID's ability to lead the 
international community in achieving sustainable results.

    Question. What further reforms are needed to make USAID more 
effective?

    Answer. While I understand USAID has made significant progress as a 
result of the reform effort launched in 2010, known as USAID Forward, I 
believe that USAID can be more effective if the Agency further 
strengthens its Foreign Service, improves transparency when it comes to 
results, and bolsters local solutions.
    I understand that approximately 50 percent of Foreign Service 
officers (FSOs) have less than 5 years of experience with USAID. If 
confirmed, I will make it a high priority to invest in the professional 
development of new FSOs so they can operate and implement programs 
effectively.
    Second, USAID Forward and its reforms require staff to partner, 
innovate, and deliver results while transparently reporting on foreign 
assistance to Congress, the public, and external stakeholders. If 
confirmed, I will work to streamline these processes to achieve even 
greater effectiveness and continue to strengthen USAID's commitment to 
accountability.
    Third, if confirmed, I will ensure that USAID continues to invest 
in local solutions that achieve sustainable results and build local 
capacity and knowledge. USAID must remain committed to creating the 
conditions whereby countries can lead, resource, and sustain their own 
development.

    Question. In your view, does the recently released 2015 Quadrennial 
Diplomacy and Development Review (QDDR) support ongoing USAID Forward 
reforms?

    Answer. Yes. From the outset of the second QDDR process, USAID 
focused on advancing and institutionalizing the significant initiatives 
and reform efforts already underway, including USAID Forward. The first 
QDDR set in motion USAID Forward, a suite of reforms focused on budget 
management, policy capacity, implementation and procurement reform, 
monitoring and evaluation, innovation, science and technology, as well 
as talent management.
    The 2015 QDDR emphasizes USAID's commitment to a new way of doing 
business that brings partnership, local ownership, innovation, and a 
relentless focus on results to enable transformative change. Through 
the second QDDR, USAID emphasizes and commits further to building on 
partnerships to end extreme poverty, prevent and mitigate conflict, 
counter violent extremism, and work with civil society, religious 
institutions, and indigenous peoples to promote resilient, open, and 
democratic societies.
    I understand that additional USAID Forward reforms supported by the 
2015 QDDR include building a culture of innovation, leadership, and 
learning, as well 
as strengthening the ability to assess risks rigorously and 
comprehensively to strengthen local systems. The QDDR helps 
institutionalize USAID's focus on innovation exemplified by the Global 
Development Lab and incorporate these principles into all programming 
through work on efficiencies in policy, planning, and learning across 
the entire program cycle. The 2015 QDDR also deepens USAID Forward 
reforms by bringing greater rigor to evaluations and harnessing data 
for decisionmaking.
    I am pleased that the QDDR supports ongoing USAID Forward reforms 
that are vital to strengthening the Agency and enhancing the 
sustainable impact of its work. If confirmed as Administrator, I will 
work with the State Department leadership to fully implement the QDDR 
recommendations.
On operating in corrupt nations/safeguarding taxpayer dollars
    Question. USAID conducts operations in many countries experiencing 
instability and conflict as well as countries characterized by corrupt 
practices. What are the agency's greatest challenges with regard to 
physical security in such countries?

    Answer. I understand that USAID has presence in approximately 100 
countries and that, in roughly 35 of those, the threat from terrorism 
is rated high or critical by the Department of State's Bureau of 
Diplomatic Security (DS). I understand that, to supplement the security 
provided by DS, USAID's Office of Security (SEC) provides a variety of 
security resources to USAID Missions. Primarily, these include 
operational security guidance, office building security, armored 
vehicles, emergency communications systems, and physical and technical 
security countermeasures.
    My understanding is that USAID's greatest challenges regarding 
physical security are typically the lack of physical setback (distance) 
and blast pressure from improvised explosive devices. Diplomatic 
facilities are required to have 100 feet of setback, which is difficult 
to achieve as most diplomatic facilities are centrally located within 
congested capital cities. One of the frequently identified challenges 
is the host nation's willingness and capability to protect U.S. 
Government resources. I understand that SEC has developed and 
implemented several programs to mitigate threats to USAID staff and 
implementing partners through Partner Liaison Security Officers (PLSO), 
the Personnel Recovery (PR) Program, and Non-Permissive Environment 
(NPE) training.
    I also understand that the Agency has established an intra-agency 
working group to determine ways in which the Agency could operate more 
effectively in NPEs. USAID defines an NPE country as having significant 
barriers to operating effectively and safely due to one or more of the 
following factors: armed conflict to which the United States is a party 
or not a party; limited physical access due to distance, disaster, 
geography, or nonpresence; restricted political space due to repression 
of political activity and expression; and uncontrolled criminality 
including corruption. The challenges with regard to physical security 
that are faced by officers operating in NPEs vary, but can often 
include a high security threat negatively impacting their ability to 
partner, implement and monitor projects, as well as high stress on 
staff due to the workload and separation from family at unaccompanied 
posts.
    My understanding is that, as a result of these challenges, the NPE 
working group evaluated USAID's presence across the globe and 
designated 18 countries as NPE. Officers transitioning to, and out of, 
these 18 countries will receive tailored training and support beginning 
this summer. Three 3-day courses will be offered to ensure officers 
serving in NPEs are better equipped to program, monitor and evaluate 
projects, as well as enhance attentiveness to staff care and security 
issues. I understand that additional training and field guides are 
planned for 2016, contingent upon additional resources.

    Question. What steps can USAID take to ensure that U.S. taxpayer 
funds are spent as intended in countries where its staff may have 
difficulty directly monitoring its programs, such as Afghanistan, 
Pakistan, and Libya?

    Answer. USAID works in many places around the world where high-
threat environments pose challenges to monitoring and the Agency has 
learned important lessons on how to address those challenges. My 
understanding is that USAID tailors implementation monitoring plans for 
activities implemented in high-threat or nonpermissive environments 
like Afghanistan, Pakistan, and Libya.
    USAID has revised its official policy to address this topic. 
Specifically, its policy (ADS 202.3.6.4) on ``Monitoring in High Threat 
Environments'' holds USAID staff (Contracting Officer's 
Representatives) accountable for ``seeing that the contractors and 
grantees they manage are performing adequately and accomplishing the 
tasks they set out to achieve.'' It further notes that ``in high threat 
environments, USAID recognizes the need to keep mission personnel safe, 
as well as the need to visit project sites and meet with beneficiaries 
of development assistance.'' To ensure sufficient USAID oversight of 
activities, the policy offers alternative monitoring methods such as 
requiring photographic evidence; using third-party monitoring; 
utilizing other U.S. Government agencies; and applying technological 
approaches.
    USAID has learned important lessons over the course of its 
engagement in Afghanistan, and has drawn on experiences in other 
challenging environments--including Iraq, Pakistan, Yemen, Sudan, and 
Colombia--to put in place strong oversight of, and accountability for, 
U.S. assistance funds. Although there are inherent risks in doing 
business in a country like Afghanistan, the Agency prioritizes the 
effective and accountable use of taxpayer dollars and does not assume 
that there is any level of acceptable fraud, waste, or abuse in our 
programs. This means that oversight must be a process of continual 
reexamination of ongoing efforts, and that there must be flexibility to 
adjust to new circumstances as they arise.
    In Afghanistan, USAID has developed a multitiered monitoring 
approach to collect and verify data to inform decisionmaking. By 
collecting and triangulating information from multiple sources, the 
approach helps USAID staff mitigate inherent bias and weaknesses from 
any given source. Each Project Manager gathers and analyzes monitoring 
data from various sources, compares data to ensure confidence in the 
reporting, and use the results to make programmatic decisions. Tiered 
monitoring levels are:

  <diamond> Tier 1: USG (USAID and other agencies);
  <diamond> Tier 2: Implementing Partners;
  <diamond> Tier 3: National Unity Government (internal M&E systems, 
        observation) and other donors;
  <diamond> Tier 4: Civil society, local organizations, and 
        beneficiaries; and
  <diamond> Tier 5: Independent Monitoring Contractors.

    Regarding Tier 5, Independent Monitoring Contractors, the Agency is 
incorporating key lessons learned and themes from countries and 
programs around the world that have utilized third-party monitoring in 
environments in which chief of mission personnel face limitations on 
movement, including Iraq, Pakistan, Yemen, and West Bank/Gaza. 
Independent monitoring, however, is not the sole source of monitoring 
data and it cannot take the place of USAID staff as project managers. 
Instead, it is one tool that USAID can use to validate reporting data 
from other sources. Should USAID determine that its multitiered 
monitoring approach cannot provide adequate oversight over project 
activities, it will not hesitate to descope or terminate projects.
    For Pakistan, my understanding is that USAID has procured a new 
monitoring and evaluation program. A core difference from Afghanistan 
is that Pakistan relies heavily upon USAID's traditional performance 
monitoring and oversight practices. While they maintain the capability 
to provide third-party monitors through their recently procurement M&E 
support platform, their primary efforts focus on providing strategic 
direction to the portfolio through studies and evaluations. The 
Pakistan model has components for monitoring, evaluation, and other 
analytic products such as targeted assessments, plus learning, 
capacity-building, and mapping services. Pakistan applies third party 
monitoring in the most difficult regions (FATA) and technically 
challenging projects (Infrastructure).
    I understand that USAID manages its Libya programs through a 
combination of D.C.-based and field-based staff. Foreign Service 
National staff play a critical role in overseeing activities and 
fulfilling monitoring and evaluation requirements. In addition, USAID 
holds regular partners' workshops outside of Libya, in which 
implementing partners and interagency counterparts convene to review 
progress toward program objectives, suggest programming adjustments 
when necessary, and ensure overall program coordination.
    Further, as noted in my response to a previous question, I 
understand an intra-agency working group has been convened to determine 
ways in which the Agency could operate more effectively in 
nonpermissive environments (NPEs). USAID defines an ``NPE country'' as 
having significant barriers to operating effectively and safely due to 
one or more of the following factors: armed conflict to which the U.S. 
is a party or not a party; limited physical access due to distance, 
disaster, geography, or nonpresence; restricted political space due to 
repression of political activity and expression; and uncontrolled 
criminality including corruption. The challenges with regard to 
monitoring that are faced by officers operating in NPEs vary, but can 
often include a high security threat negatively impacting their ability 
to conduct site visits.
    My understanding is that, as a result of these challenges, the NPE 
working group evaluated USAID's presence across the globe and 
designated 18 countries as NPE. Officers transitioning to, and out of, 
these 18 countries will receive tailored training and support beginning 
this summer. Three 3-day courses will be offered to ensure officers 
serving in NPEs are better equipped to program, monitor and evaluate 
projects, as well as enhance attentiveness to staff care and security 
issues. Additional training and field guides are planned for 2016, 
contingent upon additional resources.

    Question. How should USAID address corruption concerns in recipient 
countries?

    Answer. Recognizing that corruption is a growing threat to the 
national security of the United States and its allies, President Obama 
announced the U.S. Global Anticorruption Agenda in 2014. For over two 
decades in numerous international fora, the United States has helped 
develop a strong global consensus that fighting corruption and 
supporting good governance are essential for the development of people, 
markets, and nations. It is now globally recognized--as confirmed by 
the 173 countries that have joined the United States as signatories of 
the United Nations Convention Against Corruption--that corruption 
undermines social cohesion, damages economic growth, distorts public 
services, weakens the rule of law, and erodes property rights.
    If confirmed as Administrator, I will work with USAID leadership to 
strengthen our efforts to combat corruption and promote accountable, 
democratic governance, which will reduce conditions that allow 
conflict, organized crime, and other transnational threats to thrive. 
These efforts include adoption of rigorous fiduciary tools to ensure 
that funds are being well spent, such as the requirements set out by 
the Public Financial Management Risk Assessment Framework (PFMRAF). 
This framework helps ensure that USAID only works with partner 
governments that are equally committed to accountability and an 
empowered civil society. In addition, USAID continues to support long-
term efforts to develop accountable and transparent institutions 
through anticorruption programs, which will ultimately contribute to 
broad-based, equitable growth.
    I am pleased that the Quadrennial Diplomacy and Development Review 
highlighted successful global initiatives, such as the Open Government 
Partnership and the Extractive Industries Transparency Initiative, and 
if confirmed, I look forward to taking full advantage of our 
development resources to promote resilient, democratic societies free 
from corruption.
On aid recipient nations
    Question. How do we encourage countries to take the lead in their 
own development and move them toward graduation from U.S. foreign 
assistance programs?

    Answer. A core aid effectiveness principle is that every country is 
responsible for defining and promoting its own social and economic 
development. A second principle is that external donors provide 
assistance that supports country ownership and aligns with a country's 
development priorities. These aid effectiveness principles were 
initially articulated in the 2005 Paris Declaration and have been 
reaffirmed by the United States Government and every other major 
bilateral and multilateral donor several times since then.
    It is my understanding that these aid effectiveness principles are 
a key factor in shaping the way that USAID develops its country-level 
strategic plans and specific development projects. I understand that an 
important part of developing a Country Development Cooperation Strategy 
(CDCS) is to consult with the partner government and other local 
stakeholders about development priorities and desired results.
    USAID's approach also emphasizes the importance of developing the 
capacity of local actors and local systems responsible for achieving 
and sustaining development outcomes. I understand that the USAID 2014 
policy document Local Systems: A Framework for Supporting Sustained 
Development, emphasizes this approach for reinforcing local 
capabilities to achieve and sustain the developmental benefits desired 
by local populations.
    A commitment to moving countries toward graduation means that USAID 
needs to focus on fewer, higher impact programs and be more selective 
about countries and regions to ensure better and more sustainable 
results. Ultimately, this approach aims to help prepare countries for 
graduation, and ensure that progress is sustained even as assistance is 
phased out. If confirmed as Administrator, I will continue to emphasize 
focus and selectivity and support for local systems that can take the 
lead in local development, and hasten the day when countries can 
graduate from foreign assistance.

    Question. Would you plan to continue successful efforts that 
promote country ownership of their own development?

  <diamond> How would you invest to increase the impact of successful 
        efforts like the Local Solutions initiative?

    Answer. USAID is committed to creating the conditions whereby 
countries can lead, resource, and sustain their own development, a 
commitment that I share and will prioritize, if confirmed. I agree that 
country ownership--mutually agreed-upon priorities, direct 
implementation through local systems as the default choice, and 
domestic resourcing by local governments, civil society, and the 
private sector--should be at the core of how USAID does business. My 
understanding is that the Agency is delivering on this commitment 
through the following organizational and programmatic reforms, which I 
will prioritize if confirmed:

  <diamond> The Agency has put in place policies and a program planning 
        process that enable it to project results over a longer 
        timeframe and align its staffing and resources accordingly.
  <diamond> USAID is ensuring that its country strategies and project 
        designs prioritize and measure sustainability through country 
        ownership, regardless of the sector. This increasingly entails 
        broad local stakeholder involvement in the Agency's planning 
        processes. It also entails analysis (e.g., political economy 
        analysis) and action (i.e., improved governance) on the 
        constraints to sustainability, all of which may not be fully in 
        the Agency's manageable control.
  <diamond> The Agency has put in place the appropriate controls to 
        prudently invest directly in local governments, civil society, 
        and bolstering the private sector (as relevant) to ensure that 
        those stakeholders are accountable, effective, and can sustain 
        results on their own.
    USAID has introduced new guidance and methodologies for monitoring 
and evaluating project performance. USAID programs are closely and 
actively monitored in-country--including through the use of objective, 
third-party evaluations--to track results at every level (input, 
output, outcome) and to make room for midcourse correction when changes 
are needed. In addition, through the use of rigorous methodologies the 
Agency is able to evaluate the impact of its programs and the extent to 
which outcomes can be attributed to USAID interventions.
    The Agency has almost doubled its Foreign Service staffing to 
increase its ability to engage directly with local governments, civil 
society, and private sector; negotiate policy reforms; leverage the 
local private sector; build capacity; innovate; and manage its 
assistance programs.
    USAID is promoting the mobilization of local resources in countries 
where it works through tax modernization; coinvestments and guarantees 
with the local private sector; budding philanthropy; and alternative 
business models such as social enterprises and social impact 
investment.
Countering violent extremism
    Question. The White House summit on Countering Violent Extremism 
(CVE) devoted significant energy to community-based efforts to decrease 
radicalization and prevent youth and other groups from engaging in 
these movements. USAID is one of the only agencies with its own CVE 
strategy--dating back to 2011.

  <diamond> What role do you see for USAID in the U.S. Government's 
        increasing efforts to counter violent extremism?
  <diamond> What kind of policy and resources would the agency need to 
        be able to meaningfully contribute to a decrease in support for 
        violent extremism among at-risk populations, particularly 
        youth?

    Answer. The White House Countering Violent Extremism (CVE) Summit 
and the regional summits have highlighted the value of USAID's approach 
to addressing violent extremism as part of a whole-of-government 
response to terrorist threats worldwide. The 2015 Quadrennial Diplomacy 
and Development Review (QDDR) also highlights USAID's role in 
countering violent extremism. This affirmation and elevation is linked 
to the recognition both in the CVE Summit agendas and the QDDR that to 
be effective, the response to violent extremism cannot focus just on 
security. It also must focus on many of USAID's core areas of work: 
education, economic opportunity, good governance, as well as empowering 
national and local governments, youth, women, community secular and 
religious leaders, civil society, and the private sector.
    It is my belief that the United States needs a broad array of tools 
in its toolkit to counter violent extremism effectively. A key USAID 
role is to focus on the issues that drive people to violent extremism 
and address these problems early by disrupting the momentum and 
overturning the rationale behind violent extremist recruitment while 
reducing local sympathies and support for extremists. These efforts 
complement our Nation's ongoing efforts aimed at reducing the terrorist 
threat to ourselves and our partners.
    I understand that USAID's approach was laid out in its 2011 agency-
level policy, ``The Development Response to Violent Extremism and 
Insurgency.'' The policy is drawn from best practices from several 
years of CVE programming, as well as from research on the factors that 
drive violent extremist recruitment and how development assistance can 
help mitigate these root causes. At its core, USAID's CVE approach is 
founded upon an understanding of the concerns of vulnerable populations 
in areas most at risk to violent extremism, which then allows us to 
work with local community organizations and government officials to 
address those concerns.
    USAID's policy is based upon more than 10 years of experience, 
which demonstrates that flexible resources are required to address 
violent extremism. USAID's approach has concentrated on youth 
empowerment, social and economic inclusion, media and messaging, 
improved local governance and in some cases reconciliation and conflict 
mitigation. Activities are tailored to meet the specific threat levels, 
political environments, and material needs of each community. USAID's 
CVE efforts often target distinct populations, for example at-risk 
young men, and increasingly recognize the unique role of women in 
promoting peace and security. I understand that an evaluation of USAID 
programs in Chad, Niger, Mali, and Kenya has helped affirm both the 
positive role development tools can play in efforts to address violent 
extremism and USAID's approach. It found that these programs have made 
a measurable impact among local populations by undermining support for 
violent extremist rhetoric and activities.
    USAID provides funding for CVE programs out of its current budget 
streams, including Economic Support Funds (ESF), Transition 
Initiatives, Development Assistance (DA), and ESF/Overseas Contingency 
Operations (OCO). In the FY 2016 budget request, the administration 
requested $390 million for the Counterterrorism Partnerships Fund 
(CTPF), which would create a specific funding stream for CVE programs 
to help build on existing efforts. As outlined in the administration's 
FY 2016 budget request, having additional funds that can be utilized in 
a flexible manner is critical to meaningfully address the local drivers 
of extremism and contribute to a decrease in support for violent 
extremism among at-risk populations, particularly youth. Reaching 
individuals and communities before they are radicalized is a key 
component in effectively reducing violent extremism. With the flexible 
funds that the administration requested, our assistance programs would 
be better positioned to program more effectively in these fragile 
communities.
Democracy, rights, governance
    Question. As highlighted in the Department of State's 2015 
Quadrennial Diplomacy and Development Review, efforts to strengthen 
global capacity for good governance and credible elections underpin the 
potential impact of all other types of aid (transparent and open 
democracies can better respond to pandemics, economic challenges, food 
insecurity, gender inequality, and peacekeeping operations).

  <diamond> As USAID Administrator, how would you improve support to 
        vital democracy and governance programming? I share your 
        commitment to promoting democracy, human rights and governance 
        (DRG). I believe that it is central to development, and an 
        integral part of the U.S. national security strategy.

    Answer. USAID recently issued a new strategy on democracy, human 
rights, and governance, which codifies a more holistic approach to our 
programming in this sector by focusing on participation, inclusion, and 
accountability, while elevating human rights and integration of 
programming across economic and social sectors.
    With respect to funding for these programs, I am pleased that the 
President's FY 2016 request includes a 20-percent increase in 
democracy, human rights, and governance for USAID. If confirmed, I will 
make this area one of my priorities, and I look forward to working with 
Congress to ensure appropriate resources are available for this 
critical area.
    It is important for USAID to be innovative in supporting islands of 
reform--pockets of greater participation and accountability--in 
countries that have yet to break through in implanting democratic 
values, institutions, and processes. It is in these countries that our 
efforts in poverty reduction, human rights and democratic governance 
need to be further joined and more tightly integrated. Our programs in 
health, food security, climate change, economic growth all need to have 
components of citizen participation and government accountability.
    If confirmed, I will ensure that USAID continues to develop the 
evidence base needed to demonstrate successes of these approaches. This 
includes improving measurements and evaluating impact as well as 
improving practices by conducting cross-sector roundtables; creating 
practice guides; and providing funding guidance to the field to enhance 
integrated programming.
Microfinance
    Question. I understand that the E3 Bureau has been reorganized and 
the Office of Microenterprise and Private Enterprise (MPEP) at USAID 
has been renamed and refocused on investment.

  <diamond> Is USAID still committed to supporting microfinance and 
        microenterprise?
  <diamond> Particularly, how will USAID continue to reach vulnerable 
        groups, including women with support for microenterprise?

    Congress has repeatedly encouraged USAID to ensure microfinance 
activities target the extreme poor.

    With the reorganize of the MPEP office, who will be in charge of 
ensuring USAID continues to target those most in need?
    If confirmed, as the Administrator, how would you prioritize 
microfinance within USAID?

    Answer. Microenterprise development has become deeply integrated 
throughout USAID's programming and the Agency remains committed to 
support microenterprise. I understand that the realignment and renaming 
of the Microenterprise and Private Enterprise Promotion (MPEP) Office 
in the E3 Bureau is still underway and will have no impact on 
microenterprise programing.
    I understand USAID has been pivotal in shaping the microfinance 
industry, particularly by transforming it into a market-driven model 
that attracts private capital, which has dramatically lessened reliance 
on donor support and has expanded access to financial services for 
millions of poor households in the developing world. It is a prime 
example of USAID partnering with the private sector to find market-
driven solutions to end extreme poverty.
    It is my understanding that while USAID once developed stand-alone 
microenterprise and microfinance projects, these efforts are now 
integrated into other USAID programs in order to advance key 
initiatives, such as Feed the Future, and PEPFAR. I understand that the 
majority of microenterprise activity takes place through USAID Mission-
level obligations, and that during the past year, the vast majority of 
USAID Missions reported involvement in microenterprise development.
    I understand microfinance is now integrated throughout the Agency 
as a means to achieve broader goals, including food security, value 
chain development, improved health and nutrition, access to housing, 
and enterprise development. If confirmed, I will ensure the reorganized 
office will continue these efforts.
    The reorganized office must also provide thought leadership for the 
Agency on effectively engaging and leveraging private capital for 
development? enhance collaboration within USAID and among U.S. 
Government agencies and donor partners; and provide advisory support to 
USAID Missions and Bureaus. Congress will receive notification of this 
realignment before any changes are finalized in the Agency.
    If confirmed, I will ensure the office will continue to fulfill all 
congressional requirements for Microenterprise programming and ensure 
programming targets the extreme poor. I will also ensure that USAID 
will have an office for microenterprise development with a Director, 
and the Office will continue to oversee an annual data call on 
microenterprise obligations, prepare the annual Microenterprise Results 
Report, and maintain a help desk to assist partners in the monitoring 
of their activities. For FY 2015, I understand that USAID's 
Microenterprise Results Report will showcase the continuing role of 
USAID's microenterprise and financial inclusion activities as pathways 
to ending extreme poverty, increasing food security, and building 
resilient households and communities.
Prevention
    Question. Of any of our recent Administrators you would have some 
of the most valuable experience to share on how to ensure we are 
preventing conflicts in Africa and other parts of the world.

  <diamond> How do you envision reforming USAID to better focus on 
        conflict prevention?

    Answer. As the 2015 Quadrennial Diplomacy and Development Review 
(QDDR) makes clear, development plays a critical role in preventing, 
mitigating, and responding to threats such as instability, armed 
conflict, and the spread of violent extremism in both stable and 
fragile countries. Effective conflict prevention and mitigation is 
essential to avoid the destructive potential of armed conflict to 
reverse development investments.
    Since the September 11 attacks in 2001, USAID has worked to develop 
a sound capacity for assessing and addressing the causes and 
consequences of conflict. I understand that, as the Agency looks 
forward to delivering on the vision set by the 2015 National Security 
Strategy and the QDDR, it will be mindful about how this capacity will 
need to evolve and be strengthened to address new needs and priorities.
    I understand that USAID is also seeking opportunities to strengthen 
funding for conflict and atrocity prevention through funding streams 
such as the Complex Crises Fund and the Transition Initiatives account. 
Doing so gives USAID the flexibility to respond quickly in crises and 
to devote resources where they can have the greatest impact.
    Armed conflicts emerge in fragile states, where long-standing 
challenges to legitimacy and effectiveness weaken state institutions 
and the relationship of people with their governments. One of the 
primary challenges of conflict prevention and mitigation is a long-term 
one--tackling the sources of fragility in countries that are vulnerable 
to conflict. The approach for upstream conflict prevention works to 
build strong, legitimate institutions and political processes in 
fragile countries that are capable of managing internal tensions and 
transnational threats.
    If confirmed, I am committed to ensuring that USAID continues to 
work with counterpart agencies and departments to implement a framework 
for more effective engagement with fragile states. We will work to 
ensure that analysis of root causes is applied to decisionmaking 
processes, and provide guidance on how to achieve results in these 
challenging environments.
    If confirmed, I will also support and promote the New Deal for 
Engagement in Fragile States. The New Deal, endorsed by the United 
States and nearly 40 countries and multilateral organizations in 2011, 
establishes peace and state-building goals and action plans, all of 
which sets a long-term approach to enable countries' transition out of 
conflict. The New Deal focuses on proven areas of need and impact, such 
as inclusive politics, enabling effective and equitable service 
delivery, reforming security and rule of law sectors, and combating 
corruption.

    Question. Under your leadership, would the FY 2017 budget better 
reflect the importance of conflict prevention and include an increase 
in this important type of programming?

    Answer. Effective conflict mitigation and prevention requires 
policy tailored to each country context, careful program implementation 
in close coordination with our partners on the ground, and appropriate 
resourcing. While the administration is still formulating the FY17 
budget request, I understand that USAID requested modest increases in 
FY16 (over FY15 enacted) in some of its core funding accounts. 
Specifically, I understand that this includes slight increases in the 
Bureau for Democracy, Conflict and Humanitarian Assistance (DCHA) core 
funding including for the Complex Crises Fund (CCF), Transition 
Initiatives (TI), as well as the Office of Conflict Management and 
Mitigation (CMM), USAID's analytic shop that is shaping policy in this 
area. CCF, TI, and CMM initiatives will strengthen the response 
capacity of country missions to better address conflict, and the Agency 
anticipates additional funding (Economic Support Funds, Development 
Assistance funds, and other) will be directed toward programming that 
mitigates the causes and consequences of conflict.
    Given the constrained budget environment, I will, if confirmed, 
recognize the need to be prudent and thoughtful in Agency budget 
requests. If confirmed, I look forward to working with Congress to 
ensure appropriate resources are available for this critical area.
Resilience
    Question. Ms. Smith, you have been a leader in the administration 
pushing for better responses to humanitarian emergencies, including 
during the food crises in the Horn and the Sahel. We greatly appreciate 
the previous Administrator and your support for building the resilience 
of communities to withstand shocks and stresses like drought and 
conflict.

  <diamond> What will you do as AID Administrator to ensure the 
        important work on building resilience continues and is 
        institutionalized within USAID?

    Answer. In 2012, USAID launched its first-ever policy and program 
guidance on ``Building Resilience to Recurrent Crisis,'' which commits 
USAID to put more development focus on the most vulnerable, to build 
the adaptive capacity of these populations, and to improve the ability 
of communities, countries, and systems to manage and mitigate risk. I 
understand that USAID has expanded upon its initial focused resilience 
efforts in Ethiopia, Kenya, Niger, and Burkina Faso and that similar 
efforts are now underway in Somalia, Uganda, Mali, and Nepal.
    If confirmed, I will support the Agency's development of additional 
guidance later this year that reflects resilience challenges and 
opportunities in Asia. As part of the Country Development Cooperation 
Strategy planning processes, the Agency will work to embed resilience 
into overall assistance strategies for focus countries in Africa and 
Asia, as well as other countries where risk and vulnerability are 
prominent threats and undermine development gains. I also commit, if 
confirmed, to maintaining the Agency's long-term investments in 
resilience in the Horn of Africa and the Sahel.
    I understand that USAID's resilience investments are supported by 
bureaus and offices across the agency, including Africa Bureau; Asia 
Bureau; Bureau for Food Security; Bureau for Democracy, Conflict, and 
Humanitarian Assistance; Bureau for Global Health; the General Counsel; 
and Bureau for Economic Growth, Education, and the Environment. If 
confirmed, I commit to sustaining this whole-of-agency effort to build 
resilience to recurrent crises.
Tuberculosis
    Question. As we saw last year with the Ebola crisis, a disease in a 
remote part of the world can quickly become a global problem. Drug 
resistant tuberculosis (TB) has been referred to as ``Ebola with 
wings.'' Drug resistant TB requires a strong U.S. response since it is 
spread simply by coughing, there is no effective vaccine, and the costs 
of treating it are enormous. The latest case to grab the headlines, of 
a young woman from India with XDR TB (Extensively Drug Resistant TB) 
who traveled to the United States, has alarmed the public. USAID's role 
is to help countries improve the quality of care and respond to drug 
resistance, but, for several years in a row, the Obama administration 
has proposed a large cut in USAID's TB budget. The White House has 
stated that it is drafting an Action Plan on drug resistant TB.

  <diamond> Will this plan be comprehensive at the scale needed to get 
        ahead of drug resistant TB?
  <diamond> Under your watch, will USAID's TB program get full support?

    Answer. I understand that the White House action plan on drug-
resistant tuberculosis (DR-TB) is currently under development and will 
build on the current USAID TB portfolio and the Global Fund to Fight 
AIDS, Tuberculosis and Malaria TB grants. This will accelerate progress 
toward achieving the goals laid out in the USG TB Strategy and 
contribute to the global effort to end the pandemic.
    I understand that USAID will be leading the international part of 
the plan. It will focus on the development and implementation of faster 
and better quality diagnostics and treatment regimens, prioritizing 
countries with the highest burdens of drug-resistant TB to maximize 
limited resources and end TB as a major cause of morbidity and 
mortality. The rollout of new drugs and regimens will be critical to 
saving lives and preventing the development and transmission of deadly 
drug-resistant TB. I understand the next step in this fast-track 
process is a stakeholder forum to ensure input from a wide spectrum of 
partners.
    I also understand that USAID focuses TB resources through an 
evidence-based exercise that determines the best approach for 
continuation of TB funds based on burden of TB, drug-resistant TB, TB 
coinfection with HIV, and other contributing factors.

  <diamond> Under your watch, will USAID's TB program get full support?

    Answer. While I cannot guarantee future funding levels, I will, if 
confirmed, help to ensure that USAID continues its efforts to curb the 
epidemic by working closely with partners such as the Global Fund for 
AIDS, TB and Malaria, ensuring high quality TB programs that 
appropriately treat and cure patients of the disease, and prevent the 
emergence and spread of drug-resistant strains. I would support USAID's 
leadership role in its coordination of U.S. Government global TB 
efforts, support for global initiatives, and support to countries to 
ensure the further development of quality programs to address TB and 
DR-TB using the best tools and treatments available.

                               __________
               administrator-designate smith's responses 
                   to questions from senator isakson
    Question. As you know, Sen. Casey and I introduced the Global Food 
Security Act which would formally authorize Feed the Future.

  <diamond> What are the challenges that Feed the Future has currently 
        and how will you make it stronger in your role as USAID 
        Administrator?

    Answer. First, let me thank you for your support of the Feed the 
Future initiative and the New Alliance for Food Security and Nutrition, 
which have together elevated food security on the global agenda, 
registered direct impact on reducing poverty and improving nutrition, 
and mobilized billions of dollars in direct assistance and private 
resources. In 2013 alone, Feed the Future reached more than 12.5 
million children with nutrition interventions and helped more than 7 
million farmers and food producers use new technologies and management 
practices on more than 4 million hectares of land.
    Among the major challenge we face with respect to Feed the Future 
is closing the gender gap in agriculture. Women are the key players in 
the agricultural sector, but they own fewer assets and have less access 
to inputs (for example, seeds and fertilizer) and services. We have 
made considerable progress in this area, thanks in large part to 
USAID's development of a Women's Empowerment in Agriculture Index, a 
survey-based monitoring tool. If confirmed, I am committed to ensuring 
that FTF uses this data to identify the specific impediments to women's 
empowerment in agriculture (such as lack of control over productive 
assets or access to finance), to develop and implement new programs in 
our focus countries that better integrate women farmers into 
agricultural value chains, and give them greater access to credit, 
inputs, and services.

    Question. Part of what we are trying to accomplish with the Global 
Food Security Act is to make the strategy and processes behind Feed the 
Future more transparent, so that we can more fully understand the 
effectiveness of our government's efforts.

  <diamond> In the event that you are confirmed before the passage and 
        enactment of the bill, will you commit to making the strategy 
        and process for Feed the Future more transparent?

    Answer. Yes, if confirmed, I will commit to build upon the 
accountability measures in place to make Feed the Future as transparent 
as possible. As you may know, this year FTF is conducting population-
based surveys of 17 of its 19 focus countries, which will document our 
progress in poverty and child stunting reduction, as well as other 
high-level indicators across our geographic implementation zones. In 
addition, I understand that USAID is conducting more than 15 
independent impact evaluations that help show whether positive 
changes--such as increases in farmer income or improvements in 
children's nutritional status--are caused specifically by U.S. 
assistance. If confirmed, I will ensure the reports and data sets from 
these evaluations are made publicly available, along with financial and 
annual country performance data. If confirmed, I will ensure that these 
data sets are provided to the Congress and made public. In addition, it 
is my understanding that in 2016, the Agency will conduct an 
independent external evaluation of FTF that will review all aspects of 
the initiative. If confirmed, I commit to making the results of this 
evaluation public and to instituting any necessary course corrections 
to maximize the impact of this critically important work.

                               __________
               administrator-designate smith's responses 
                     to questions from senator paul
    Question. In a recent GAO report on foreign aid (GAO-15-377), GAO 
recommended that USAID should strengthen accountability for government-
to-government (G2G) assistance. If confirmed, what additional steps 
would you take as USAID Administrator to improve the accountability on 
this form of aid?

    Answer. It is my understanding that USAID has addressed the 
concerns raised in the Government Accountability Office (GAO) report 
regarding its government-to-government (G2G) assistance. I also 
understand that the GAO report commended USAID for completing detailed 
risk assessments and for using audits to further identify areas in 
which a partner country's public financial management practices could 
be strengthened to further ensure capacity to manage USAID funds.
    If confirmed, I will ensure that the Agency continues its efforts 
to build upon the GAO report and its recommendations to strengthen 
accountability for G2G assistance. My understanding is that these 
efforts are focused on fully supporting a more efficient and effective 
enabling environment for USAID's overall Local Solutions initiative, 
including for G2G assistance, and consist of:

  <diamond> Strengthening and simplifying policies, procedures, 
        templates, and tools to improve accountability;
  <diamond> Improving risk management techniques, procedures and tools 
        for designing, implementing and monitoring G2G activities;
  <diamond> Providing the needed support and resources to USAID staff 
        in order to strengthen G2G capacity-building, accountability, 
        and transparency;
  <diamond> Continuing to improve implementation, timeliness and 
        monitoring of annual financial audits of G2G funds in 
        collaboration with USAID's Office of Inspector General and GAO; 
        and
  <diamond> Enhancing and coordinating development partner 
        collaboration and harmonization.

    Question. The U.S. taxpayers have given billions and billions of 
dollars to support aid work in Afghanistan over the last decade, yet 
there have been questions on both the accountability and the 
effectiveness of this money. For example, the Special Inspector General 
for Afghanistan Reconstruction (SIGAR) recently has called on USAID to 
respond to allegations that progress data related to Afghan education 
system was falsified.

  <diamond> If confirmed, what are your top three priorities for 
        improving the accountability and effectiveness for any aid to 
        Afghanistan?

    Answer. Regarding SIGAR's Letter of Inquiry related to data on 
education, I understand that USAID's formal response is due by June 30 
and USAID will share its response with the committee when submitted.
    If confirmed as Administrator, my top three priorities for 
enhancing accountability and aid effectiveness in Afghanistan will be: 
(1) working to ensure full implementation of the accountability and 
sustainability measures already put in place for assistance to 
Afghanistan; (2) working to ensure there is a regular review of our 
existing accountability and sustainability policies in order to 
regularly assess current policies and procedures, develop any new ones 
that may be necessary, implement any new ones that are necessary, and 
communicate those new policies and procedures internally in the agency 
and externally to Congress and others; and (3) working to ensure that 
USAID's culture empowers staff to alert leadership to any significant 
issues disclosed by the Agency's monitoring of projects in Afghanistan, 
or anywhere.
    If confirmed, I will support USAID staff to take action when they 
identify projects in need of such measures.
    USAID has learned important lessons over the course of its 
engagement in Afghanistan, and has drawn on experiences in other 
challenging environments--including Iraq, Pakistan, Yemen, Sudan, and 
Colombia--to put in place strong oversight of, and accountability for, 
U.S. assistance funds. Although there are inherent risks in doing 
business in a country like Afghanistan, the Agency prioritizes the 
effective and accountable use of taxpayer dollars and does not assume 
that there is any level of acceptable fraud, waste, or abuse in our 
programs. This means that oversight must be a process of continual 
reexamination of ongoing efforts, and that there must be flexibility to 
adjust to new circumstances as they arise.
    Operationally, USAID has adjusted its implementation model to 
improve sustainability and meet the challenges presented by changes on 
the ground in Afghanistan, as follows:

  <diamond> Developing a multitiered monitoring strategy to address 
        reduced mobility and decreased field staff that, along with 
        other monitoring and evaluation efforts, will continue to 
        ensure appropriate oversight of projects;
  <diamond> Transforming USAID's approach in Afghanistan to one of 
        mutual accountability that incentivizes Afghan reforms by 
        conditioning an increasing percentage of our assistance to the 
        government on progress on reforms and that continues to 
        increase government involvement and ownership of development 
        needs; and
  <diamond> Focusing on long-term sustainability through implementing 
        three key principles of: (1) increasing Afghan ownership and 
        capacity; (2) contributing to community stability and public 
        confidence in the Government of Afghanistan; and (3) 
        implementing effective and cost-efficient programming.

                               __________


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 23, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Glyn Townsend Davies, of the District of Columbia, to be 
        Ambassador to the Kingdom of Thailand
William A. Heidt, of Pennsylvania, to be Ambassador to the 
        Kingdom of Cambodia
Jennifer Zimdahl Galt, of Colorado, to be Ambassador to 
        Mongolia
Atul Keshap, of Virginia, to be Ambassador to the Democratic 
        Socialist Republic of Sri Lanka and to the Republic of 
        Maldives
Alaina B. Teplitz of Illinois, to be Ambassador to the Federal 
        Democratic Republic of Nepal
David Hale, of New Jersey, to be Ambassador to the Islamic 
        Republic of Pakistan
Sheila Gwaltney, of California, to be Ambassador to the Kyrgyz 
        Republic
                              ----------                              

    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senators Risch, Gardner [presiding], Cardin, 
Shaheen, Murphy, and Kaine.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to today's full Senate Foreign 
Relations Committee hearing on nominations.
    I want to thank Senator Cardin for working with this date 
and the witnesses today supporting this important hearing 
today.
    We will have two panels today, the first on nominees from 
East Asia and Pacific region, and then at 11 a.m., Senator 
Risch will take over for a second panel of nominees from the 
South and Central Asia region.
    I first want to welcome all the family members who are here 
today for this distinguished panel this morning.
    In the first panel of witnesses, we will hear from three 
nominees: Mr. William Heidt to be Ambassador to the Kingdom of 
Cambodia; Mr. Glyn Davies to be Ambassador to the Kingdom of 
Thailand; and Ms. Jennifer Galt to be Ambassador to Mongolia.
    I had an opportunity to meet personally with all of these 
well-qualified nominees, and I want to warmly welcome them and 
their families to this hearing today.
    Thailand is the longest standing U.S. ally in Asia. The 
Kingdom of Siam and the United States concluded a Treaty of 
Amity and Commerce in 1833 when our Nation was still in its 
infancy.
    In 1954, modern day Thailand and the United States became 
military allies under the Treaty of Manila, and in 2003, the 
United States designated Thailand as a major non-NATO ally.
    Despite the historically tumultuous domestic politics in 
Thailand, the commercial and military relationship between our 
nations has blossomed. The United States is Thailand's third-
largest bilateral trade partner. Our militaries have averaged 
40 joint exercises per year. We cooperate actively on issues as 
wide-ranging as humanitarian disaster assistance to law 
enforcement to disease control.
    However, the 2014 military coup in Thailand threatens to 
set back the positive trajectory of our relationship unless 
Bangkok moves decisively to restore democracy.
    So I look forward to hearing from Mr. Davies today on how 
we can maintain and grow our strong relationship while exerting 
efforts to see Thailand successfully move back to the 
democratic path.
    Cambodia represents an opportunity for the United States to 
build another long-standing partnership in Southeast Asia. 
After the unparalleled brutality of Pol Pot and the Khmer Rouge 
regime and the civil war that ensued in the 1970s and the 
1980s, Cambodia seems to have finally found a semblance of 
stability and a democratic footing.
    The July 2013 elections and the 2014 power-sharing 
agreement between the ruling Cambodian People's Party and the 
main opposition groups, unified as the Cambodian National 
Rescue Party, are hopeful steps forward, although progress 
remains fragile.
    Cambodia is the poorest country in Southeast Asia with GDP 
at about $2,600 per person, and the country is heavily 
dependent on overseas development assistance, including from 
the United States.
    So I look forward to hearing from Mr. Heidt on moving the 
democratic process forward, but also assisting Cambodia with 
its economic and development challenges.
    Next but certainly not least, we will move to East Asia and 
Mongolia. Sandwiched between two world powers, Russia and 
China, Mongolia has major strategic importance for the United 
States. Since transitioning from socialism to democracy in 
1992, Mongolia has held six direct Presidential elections and 
six direct parliamentary elections.
    The country possesses vast mineral wealth, although 
corruption and economic development remain serious issues in 
that country.
    Despite the difficult geopolitical environment, Mongolia 
has been a strong ally to the United States. Mongolian troops 
were part of the coalition during the Iraq war and continue to 
serve alongside U.S. troops in Operation Enduring Freedom in 
Afghanistan.
    So I look forward to hearing from Ms. Galt on how we can 
strengthen this critical partnership between our nations.
    And now I will turn it over to Senator Cardin for this 
hearing.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
for holding this hearing so that we can consider these three 
nominees.
    I want to thank all three of them, as you already have, and 
their families. This is an incredible service to our country 
that you are willing to perform in a place far away from where 
we are today. So we know it is a sacrifice. We know your 
families are making those sacrifices, and we thank you for your 
willingness to represent the United States in these foreign 
policy posts that are strategically important to U.S. security 
and economic interests.
    Glyn Davies is well known to many members of this committee 
for his recent service as the Special Representative for North 
Korea Policy, but he has also served as U.S. Representative to 
the IAEA and senior positions in the East Asia Bureau and the 
Bureau of Democracy, Human Rights and Labor. This experience 
will provide an important background for his service in 
Thailand, if confirmed, particularly given recent events there.
    William Heidt is currently the executive assistant to the 
Under Secretary for Economic Growth, Energy, and the 
Environment at the Department of State, a position which will 
be invaluable given the economic and development opportunities 
we have in Cambodia. Mr. Heidt also has held a senior post in 
Warsaw, at the U.N., Indonesia, and in Cambodia. So he brings a 
great deal of experience to this position.
    And finally, Jennifer Galt, who currently serves as our 
counsel general in China. She has been a senior advisor in the 
Department of Public Affairs and also served NATO, as well as 
previous posts in China and India.
    So, Mr. Chairman, we are very fortunate to have three 
career diplomats before us who have devoted their professional 
life to serve our country. And I thank them again for their 
willingness to serve in three important posts in the United 
States foreign policy.
    You already mentioned Thailand is one of our longest 
friendships, 180 years of cooperation in public health, trade, 
in security and education. But as you also pointed out, the 
recent coups have presented tremendous challenges to Thailand 
and its relationship with the United States. The restoration of 
democratic governance must be our top priority. And I must tell 
you it is taking too long, and we must push for early elections 
so that we can move forward with this democratic country.
    I also want to point out that it is a Tier 3 country in our 
Trafficking In Persons Report and that is unacceptable. So we 
need to continue to push Thailand to do the right thing on 
behalf of ending modern day slavery.
    In Cambodia, they are on a Tier 2 Watch List for 
trafficking. That is unacceptable, and they will need our help 
again in dealing with this. As you pointed out, it is the 
poorest country in the region and has huge challenge, but lots 
of potential, potential in economics. The environmental issues 
are challenging, but there is a great prospect there. And 
certainly expanding their democratic institutions will present 
a full array of opportunities for the U.S. mission in Cambodia.
    And Mongolia. It is one of the youngest democracies. It has 
been supportive of our military operations in Iraq and 
Afghanistan and is a country that is the newest member of the 
OSCE, an organization where I have devoted a good deal of my 
attention.
    So I think all three of the posts offer important strategic 
partnerships with the United States and a great opportunity, 
but also challenge and I look forward to hearing from our 
witnesses.
    Senator Gardner. Mr. Glyn Davies is a career member of the 
Senior Foreign Service and currently serves as senior advisor 
in the Bureau of East Asian and Pacific Affairs at the 
Department of State.
    Previously, Mr. Davies served as Special Representative for 
North Korea Policy; Permanent Representative to the 
International Atomic Energy Agency and the United Nations 
Office in Vienna, Austria; Principal Deputy Assistant Secretary 
and Deputy Assistant Secretary, East Asia and Pacific Affairs 
Bureau; Senior Advisor, Foreign Service Institute Leadership 
Management School; Acting Assistant Secretary, Bureau of 
Democracy, Human Rights and Labor; Deputy Assistant Secretary 
of the Bureau of European and Eurasian Affairs; Political 
Director for the U.S. Presidency of the G8 with rank of 
Ambassador; and Deputy Chief of Mission, U.S. Embassy in 
London, United Kingdom.
    Mr. Davies earned an M.S. at the National War College in 
1995 and a B.S. from Georgetown University in 1979. He has been 
the recipient of numerous Senior Foreign Service performance 
and honor awards, fluent in French.
    Welcome, Mr. Davies and your family. And we look forward to 
hearing your comments this morning.

       STATEMENT OF HON. GLYN TOWNSEND DAVIES, NOMINATED 
          TO BE AMBASSADOR TO THE KINGDOM OF THAILAND

    Ambassador Davies. Thank you, Mr. Chairman, members of the 
committee. Thank you for the chance to appear before you today.
    I am honored to be President Obama's nominee to serve as 
the United States Ambassador to the Kingdom of Thailand. I 
thank both the President and Secretary of State Kerry for their 
support.
    I also thank all members of the committee for this 
opportunity to speak to my qualifications. Throughout my 
career, I have worked to develop the experience to lead my 
colleagues in strengthening America's security and advancing 
its prosperity. If confirmed, serving as chief of mission in 
Bangkok would draw on all of my 36 years as a Foreign Service 
officer.
    My family is my greatest strength. I would like to express 
my love and gratitude to my wife, Jackie; daughters, Ashley and 
Teddie; son-in-law, Chapin; and granddaughters, Josie and 
Cybbie. Josie and Cybbie and my wife and daughter are sitting 
behind me today.
    Thailand and the United States share a long and a deep 
friendship. Thailand is, as you said, our oldest treaty ally in 
Asia. We work together to advance regional security, expand 
trade, improve public health, assist refugees, counter human 
trafficking, illegal narcotics, wildlife trafficking, and 
protect the environment. Few bilateral relationships are as 
broad and beneficial.
    Over the past decade, Thailand's internal political divide 
has polarized Thai society. We do not take sides in this, but 
we do stress our strong support for democratic principles and 
our commitment to our historic friendship with the Thai people.
    Since the coup, the United States has publicly and 
privately made clear our concerns about the disruption of 
Thailand's democratic traditions and the limits placed on civil 
liberties, including freedom of expression and peaceful 
assembly. Democracy can only emerge when the Thai people freely 
and fairly elect their own government. As required by law, the 
United States suspended certain assistance until a 
democratically elected civilian government takes office. When 
that occurs, our relationship can return to its fullest 
capacity.
    Our call for restoring democracy does not advocate for a 
specific constitutional blueprint. That is for Thailand's 
people to decide through an inclusive political process. If 
confirmed, I will support their democratic aspirations.
    Mindful of our long-term strategic interests, we remain 
committed to our security alliance. Thai and U.S. troops fought 
side by side in both Vietnam and Korea, and together we hold 
many bilateral and multilateral exercises, including Asia's 
largest, Cobra Gold. These allow us to increase coordination 
and cooperation to respond to humanitarian and natural 
disasters. We collaborate extensively on public health issues, 
including research on a vaccine for HIV/AIDS.
    The United States is Thailand's third-largest trading 
partner. Our companies are major investors there. Our Embassy 
in Bangkok, supported by our consulate general in Chiang Mai, 
is a regional hub for the U.S. Government and one of our 
largest missions in the world.
    Our people-to-people ties are strong. Thousands of Thai and 
American students study in each other's countries. The Peace 
Corps has been in Thailand for over 50 years. Americans have 
long admired and respected Thailand's traditions and culture. 
His Majesty King Bhumibol has led his people with compassion 
for close to 70 years and has worked tirelessly for their 
advancement.
    Thailand is a founding member and leading voice in all of 
the region's multilateral institutions. We work with Thailand 
and through those bodies to advance regional growth and 
security.
    We also work with government and civil society 
organizations to address human trafficking. If confirmed, I 
will encourage Thailand to take robust action to combat it.
    Thailand has been a key partner on humanitarian issues, 
sheltering thousands of Burmese refugees, as well as the 
Rohingya and vulnerable populations from some 50 nationalities. 
Thailand hosted a regional conference in May on the migrant 
crisis in the Andaman Sea and Bay of Bengal. We stress the need 
to save lives and treat vulnerable migrants humanely. We also 
partner with Thailand to respond to natural disasters such as 
the earthquakes in Nepal earlier this year.
    We care deeply about Thailand and about its people. If 
confirmed, I will work closely with this committee to advance 
our broad range of interests in that country. While we will 
continue to do much with Thailand, we look forward to its 
return to democracy so our joint efforts can reach their 
fullest potential. We believe the Kingdom of Thailand can find 
reconciliation, establish democracy, and fulfill its historic 
destiny as a great and free nation.
    Thank you again for considering my nomination, and I look 
forward to answering your questions.
    [The prepared statement of Ambassador Davies follows:]

               Prepared Statement of Glyn Townsend Davies

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am honored to be President 
Obama's nominee to serve as the United States Ambassador to the Kingdom 
of Thailand. I thank the President for the confidence he has placed in 
me by putting me forward to the Senate for consideration, and thank 
Secretary of State Kerry for his strong support. I am grateful to all 
the members of the committee for this chance to speak to my 
qualifications and intentions.
    I joined the Foreign Service in 1980, and have sought throughout my 
career to develop the experience and skills to lead interagency 
colleagues in strengthening our country's security and advancing our 
prosperity. If confirmed, serving as Chief of Mission in Bangkok would 
be the culmination of that 36-year effort.
    My family is my greatest strength. I would like to express my love 
and gratitude to my wife, Jackie, daughters Ashley and Teddie, son-in-
law, Chapin, and granddaughters, Josie and Cybbie.
    Thailand and the United States share a long and enduring 
friendship. Thailand is one of our oldest treaty allies in Asia. We 
collaborate on a remarkably wide range of issues, including advancing 
regional security, expanding trade and investment, enhancing public 
health, assisting refugees and displaced persons, countering illegal 
narcotics and wildlife trafficking, fighting transnational crime, and 
protecting the environment. Despite the limitations we have had to 
impose on aspects of our engagement after Thailand's May 2014 military 
coup, few bilateral relationships are as broad and yield as many 
benefits to both countries.
    Over the past decade, Thailand's internal political divide has 
dramatically deepened, polarizing not just the political class but 
society as a whole. We have not taken sides in this debate, but have 
stressed our unwavering support for democratic principles and our 
commitment to our historic friendship with the Thai people.
    Since the coup, the United States has consistently underscored both 
publicly and privately our concerns about the disruption of Thailand's 
democratic traditions and accompanying restrictions on civil liberties, 
including freedom of expression and peaceful assembly. We maintain that 
democracy can only emerge when the Thai people freely and fairly elect 
their own representatives and leaders. As required by law, the United 
States has suspended certain assistance until a democratically elected 
civilian government takes office. When that occurs, our bilateral 
relationship can return to its fullest capacity.
    Our call for the restoration of civilian government, a return to 
democracy, and full respect for human rights, including freedom of 
expression and of peaceful assembly, does not mean we advocate for a 
specific constitutional or political blueprint. Those are questions for 
the Thai people to decide through an inclusive political process that 
allows for an open and robust debate about the country's political 
future. If confirmed, I will continue to support the democratic 
aspirations of the Thai people.
    Mindful of our long-term strategic interests, we nonetheless remain 
committed to maintaining our security alliance. Thai and U.S. troops 
fought side by side during the Vietnam and Korean wars, and together we 
hold many bilateral and multilateral exercises, engagements, and 
exchanges, including Asia's largest multilateral military gathering, 
Cobra Gold. These interactions provide invaluable opportunities to 
increase coordination and cooperation, including on providing 
humanitarian assistance and responding to natural disasters.
    The United States is Thailand's third-largest trading partner, and 
American companies are major investors in Thailand. Our Embassy in 
Bangkok, supported by our consulate general in Chiang Mai, is a 
regional hub for the U.S. Government and remains one of our largest 
missions in the world. We collaborate extensively on public health 
issues, a cornerstone of our bilateral cooperation, including promising 
research on a possible vaccine for HIV/AIDS.
    Our people-to-people ties are strong and growing. Educational 
linkages help thousands of Thai and American students study in each 
other's countries. The Peace Corps has deployed volunteers across 
Thailand for over 50 years. The American people have long admired and 
respected Thailand's rich traditions and culture. His Majesty King 
Bhumibol Adulyadej, the only monarch ever born in the United States, 
has led his people with compassion and integrity for almost 70 years 
and has been a tireless advocate for the advancement of the Thai 
people.
    Thailand is a founding member and a leading voice in all of the 
region's multilateral institutions, including the Association of 
Southeast Asian Nations (ASEAN), the East Asia Summit, the Asia-Pacific 
Economic Cooperation (APEC) forum, and the Lower Mekong Initiative 
(LMI). The United States will continue to work with Thailand and 
through the region's institutions to further our mutual goals of 
stimulating trade and economic growth and promoting regional security.
    We work with the Thai Government to strengthen its efforts to 
address the country's human trafficking problem. We also support civil 
society organizations that help identify and protect victims and 
promote the rights of migrant workers. If confirmed, I will encourage 
Thailand to take robust action to combat human trafficking.
    For many years, Thailand has been an important partner on 
humanitarian issues. It hosted hundreds of thousands of refugees after 
the Vietnam war. Today, Thailand shelters some 110,000 Burmese refugees 
and asylum seekers in nine refugee camps along the Thailand-Burma 
border, as well as the Rohingya and vulnerable populations from some 50 
nationalities. Thailand hosted a regional conference in May on the 
migrant crisis in the Andaman Sea and Bay of Bengal. We continue to 
work closely with Thailand and other affected countries to address the 
sensitive issue of irregular migration with a priority on saving lives 
and urging humane treatment of vulnerable migrants. We also work 
closely with the Thai to respond to natural disasters, including the 
devastating 2008 cyclone in Burma and the earthquakes in Nepal earlier 
this year.
    We care deeply about our bilateral relationship and about the 
people of Thailand. If confirmed, I will work closely with this 
committee to advance our broad range of interests in Thailand. While we 
will continue to do much together, we look forward to its return to 
democracy so that our joint efforts can reach their fullest potential. 
We believe the Kingdom of Thailand can find reconciliation, establish 
democracy, and fulfill its historic destiny as a great and free nation.
    Thank you again for considering my nomination. I look forward to 
answering your questions.

    Senator Gardner. Thank you, Mr. Davies.
    Mr. Heidt is a career member of the Senior Foreign Service 
and currently serves as Executive Assistant, Office of the 
Under Secretary for Economic Growth, Energy, and the 
Environment in the Department of State. Previously, Mr. Heidt 
served the Department of State as Deputy Chief of Mission in 
the U.S. Embassy in Warsaw, Poland; Counselor for Economic and 
Social Affairs, U.S. Mission to the United Nations in New York; 
economic counselor, U.S. Embassy, Jakarta, Indonesia; Special 
Assistant, Office of the Under Secretary for Economic, 
Business, and Agricultural Affairs; also as finance and 
development officer, Embassy Jakarta in Indonesia; and economic 
and commercial officer, U.S. Embassy Phnom Penh, Cambodia.
    Mr. Heidt earned a B.A. at Pennsylvania State University in 
1984 and an M.A. at George Washington University in 1986. His 
awards include Department of State Senior Foreign Service 
performance, superior honor, and meritorious honor, as well as 
joint Department of State and Department of Labor award for 
excellence in labor diplomacy. He speaks fluent Cambodian, as 
well as Polish, Indonesian, and German.
    Welcome, Mr. Heidt, to you, your family and friends.

        STATEMENT OF WILLIAM A. HEIDT, NOMINATED TO BE 
             AMBASSADOR TO THE KINGDOM OF CAMBODIA

    Mr. Heidt. Thank you very much, Chairman Gardner, Ranking 
Member Cardin, and Senator Kaine.
    It is an honor and a privilege to appear before you today 
as the President's nominee to be Ambassador to the Kingdom of 
Cambodia. I am deeply grateful to President Obama and Secretary 
Kerry for the confidence and trust they have placed in me by 
nominating me for this position. If confirmed, I pledge to work 
closely with this committee to advance the United States broad 
range of interests in a peaceful, democratic, and prosperous 
Cambodia.
    I am accompanied today by my wife, Sotie, and son, Allen, 
who are sitting right behind me to my right, and who have 
served overseas tours with me in hot cities and cold ones too, 
ranging from Cambodia, Indonesia, Poland, and New York City.
    I have spent the bulk of my 28-year Foreign Service career 
working on the interlinked challenges of promoting America's 
prosperity overseas and helping developing countries enact the 
policies and build the institutions they need to improve living 
standards, protect the environment, and compete in a global 
economy.
    One of my most memorable Foreign Service tours was in Phnom 
Penh from 1997 to 1999 where I worked on a number of the most 
critical issues facing the country, including illegal logging, 
food security, and building a sustainable garment industry with 
decent and dignified conditions of work.
    Cambodia has changed dramatically since that time. GDP 
growth has exceeded 7 percent annually for the past decade, and 
as a result, the national poverty rate has fallen from well 
over 50 percent in 2000 to 17 percent in 2012. Life expectancy 
has increased substantially as well. If confirmed, I plan to 
make growing the trade and investment relationship between the 
United States and Cambodia a top priority.
    Cambodia's performance on human rights and democracy issues 
has been more uneven. The most recent national elections in 
2013 drew unprecedented public involvement but were also marred 
by allegations of fraud. After a yearlong post-election 
standoff, the ruling party and opposition reached agreements on 
power-sharing in the National Assembly and reforming the 
country's election law and National Election Committee.
    But despite these negotiated agreements, concerns remain 
about provisions that appear to limit the activities of NGOs in 
the democracy area and that open the door for increased 
influence by the Cambodian military and other government 
officials in election campaigns. If confirmed, I will make it a 
priority to work with the government, opposition, and civil 
society to strengthen Cambodia's democratic institutions.
    The building of a vibrant, homegrown civil society is one 
of Cambodia's most impressive achievements since the 1993 Paris 
Peace Accords, but NGOs in Cambodia today face deep uncertainty 
in the form of a draft law on associations and nongovernmental 
organizations that is soon to be considered in the National 
Assembly. Provisions in this draft law would appear to limit 
the activities NGOs may engage in and create burdensome 
registration and reporting requirements for them. The United 
States has spoken about these concerns and the lack of public 
consultations to date on the law. If confirmed, I will work 
closely with civil society and the government to encourage the 
creation of stable and supportive conditions for a vibrant 
civil society in Cambodia.
    Cambodia has also made progress in recent years on several 
crucial humanitarian and justice issues. With assistance from 
the United States Government and a number of NGOs, Cambodia has 
made great strides in reducing child sex trafficking, one of 
the saddest and most pernicious social problems the country has 
faced. The State Department and USAID continue to work with 
Cambodia to reduce labor trafficking, which remains a 
significant problem in Cambodia and its neighbors.
    The United States supports the work of the Khmer Rouge 
Tribunal to help the people of Cambodia find justice and hold 
accountable those most responsible for the atrocities committed 
by the Khmer Rouge. If confirmed, I will work with fellow 
tribunal supporters and the Cambodian Government to ensure that 
the tribunal completes its critical mission.
    The United States supports Cambodia's reemergence on the 
world diplomatic stage and has encouraged it to play an 
independent, principled role in ASEAN and other regional 
institutions. We have supported Cambodia's integration into the 
ASEAN Economic Community and collaborated with it in the Young 
Southeast Asian Leaders Initiative, or YSEALI. Through YSEALI, 
the United States is engaging young Southeast Asians and 
encouraging them to view their country's goals and challenges 
in a regional context. The program has been enormously popular 
in Cambodia, and if confirmed, I will make youth engagement a 
top priority.
    Mr. Chairman, it is fitting to conclude with a few words 
about Cambodia's young people. It is one of the youngest 
nations in Southeast Asia, with 70 percent of the population 
under the age of 30. Young Cambodians today are very favorably 
disposed toward the United States. Like young people 
everywhere, they want good jobs, a chance to engage in the 
political and social life of their country, and the opportunity 
to build a family. They are one of the main reasons I am 
optimistic about the country's future today.
    Mr. Chairman, thank you again for the opportunity to appear 
before the committee today. I would, of course, be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Heidt follows:]

                 Prepared Statement of William A. Heidt

    Chairman Gardner, Ranking Member Cardin, and members of the 
committee, it is an honor and privilege to appear before you today as 
the President's nominee to be Ambassador to the Kingdom of Cambodia. I 
am deeply grateful to President Obama and Secretary Kerry for the 
confidence and trust they have placed in me by nominating me for this 
position. If confirmed, I pledge to work closely with this committee to 
advance the United States broad range of interests in a peaceful, 
democratic, and prosperous Cambodia.
    I am accompanied today by my wife, Sotie, and son, Allen, who have 
served overseas tours with me in Cambodia, Indonesia, and Poland.
    I have spent the bulk of my 28-year Foreign Service career working 
on the interlinked challenges of promoting America's prosperity around 
the world and helping developing countries enact the policies and build 
the institutions they need to, improve living standards for all, 
protect the environment, and compete in the global economy.
    One of my most memorable Foreign Service tours was in Phnom Penh, 
from 1997-99, where I worked on some of the most critical issues facing 
Cambodia--controlling rampant illegal logging, feeding the 10-percent 
of the country who went hungry every dry season, and helping the 
Cambodian Government build a sustainable garment industry with decent 
and dignified conditions of work. I am proud that in 2000, after my 
return from Phnom Penh, I was awarded the joint Department of State--
Department of Labor award for labor diplomacy for my work strengthening 
workers' rights in Cambodia's garment sector.
    Cambodia has changed significantly since that time. Cambodia's GDP 
has grown more than 7 percent annually for the past decade on the 
strength of increased agricultural production, a booming tourism 
industry, investment in real estate and construction, and growth in 
garment exports. As a result, the poverty rate fell from well over 50 
percent in 2000 to just over 17 percent in 2012, and is surely lower 
today. Life expectancy has increased from 67 years in 2006 to 71.2 
years in 2013, due to improved food security and health care. If 
confirmed, I plan to make growing the trade and investment relationship 
between the U.S. and Cambodia a priority. I also hope to advance our 
cooperation on health issues, which make a direct impact on the 
Cambodian people.
    Cambodia's performance on human rights and democracy issues has 
been more uneven than its economic progress. The most recent national 
elections in 2013 drew unprecedented public involvement and were the 
most peaceful in Cambodian history but were also marred by allegations 
of fraud. After a year-long, post-election standoff, the ruling party 
and opposition reached an agreements on power sharing in the National 
Assembly and to reform the country's election law as well as Cambodia's 
National Election Committee, which oversees elections.
    But despite these negotiated agreements, concerns remain, including 
with regard to provisions that appear to limit the activities of 
nongovernmental organizations in the democracy area and open the door 
for increased influence by the Cambodian military and other government 
officials in election campaigns. The United States has a long history 
of supporting Cambodia's democratic development through foreign 
assistance funding and people-to-people contacts. If confirmed, I will 
make it a priority to work with the government, opposition, and civil 
society to strengthen Cambodia's democratic institutions and raise the 
level of public confidence in them. Conducting free and fair communal 
elections in 2017, and national elections in 2018, will be a key test 
for the Government.
    The building of a vibrant, home grown civil society is one of 
Cambodia's most impressive achievements since the 1993 Paris Peace 
Accords ended years of conflict. Cambodian and international NGOs 
deliver crucial social services, educate the public on issues ranging 
from health to information technology, build people-to-people contacts 
with countries around the world, and develop the skills of thousands of 
Cambodian workers. It is no exaggeration to say that NGOs are one of 
Cambodia's finest faces to the world.
    But NGOs in Cambodia today face deep uncertainty in the form of a 
draft Law on Associations and Non-Governmental Organizations that is 
soon to be considered in the National Assembly. Provisions in this 
draft law would appear to limit, in vague terms, the activities NGOs 
may engage in, and create burdensome registration and reporting 
requirements for NGOs. The United States has spoken about these 
concerns, the lack of public consultations to date on the law, and the 
law's overall intent. If confirmed, I will work closely with civil 
society and the Government to encourage the creation of stable, and 
supportive conditions for a vibrant civil society in Cambodia.
    Cambodia has also made progress in recent years on several crucial 
humanitarian and justice issues. With assistance from the U.S. 
Government and a number of NGOs, Cambodia has made great strides in 
reducing child sex trafficking--one of saddest, and most pernicious 
social problems the country has faced. The State Department and USAID 
continue to work with Cambodia to reduce labor trafficking, which 
remains a significant problem in both Cambodia and neighboring 
countries. The United States supports the work of the Khmer Rouge 
Tribunal to help the people of Cambodia find justice and hold 
accountable those most responsible for the atrocities committed by the 
Khmer Rouge. We will continue to work with fellow Tribunal supporters 
and the Cambodian Government to ensure the Tribunal completes its 
critical mission. And as one of the few Asian countries that is party 
to the Refugee Convention, Cambodia has made important progress in 
developing procedures to identify and protect refugees. At the same 
time, if confirmed, I will strongly urge it to apply those protections 
to people seeking asylum on its territory, including the Montagnards 
from Vietnam.
    Cambodia is playing an increasingly active role in the Southeast 
Asia region. The United States supports Cambodia's reemergence on the 
world diplomatic stage, and has encouraged it to play an independent, 
principled role in ASEAN and other regional institutions. We have 
supported Cambodia's integration into the ASEAN Economic Community and 
collaborated with Cambodia in the Young Southeast Asian Leaders 
Initiative or YSEALI. Through YSEALI, the United States is engaging 
with the 65 percent of Southeast Asians under the age of 35 and 
encouraging them to view their countries' goals and challenges in a 
regional context. The program has been enormously popular in Cambodia, 
and if confirmed, I will make youth engagement a priority.
    Mr. Chairman, it is fitting to conclude my testimony with a few 
words about Cambodia's young people. Cambodia is one of youngest 
nations in Southeast Asia with 70 percent of the population under 35. 
Most Cambodians were not even born during the brutal Khmer Rouge period 
and years of civil war, events that continue to define our perceptions 
of Cambodia. Young Cambodians today are very favorably disposed toward 
the United States, and like young people everywhere, want good jobs, a 
chance to engage in the political and social life of their country, and 
the opportunity to build a family. They are one of the main reasons I 
am optimistic about the country's future.
    Mr. Chairman, thank you again for the opportunity to appear before 
you. I would be happy to answer any questions the committee might have.

    Senator Gardner. Thank you, Mr. Heidt.
    And finally, let me extend a special welcome to a fellow 
Coloradan, Ms. Jennifer Zimdahl Galt, our nominee for Mongolia. 
Ms. Galt is a proud graduate of Colorado College in Colorado 
Springs, and her father is a professor emeritus at my alma 
mater of Colorado State University.
    Ms. Galt is a career member of the Senior Foreign Service, 
class of minister counselor, currently serves as principal 
officer at the U.S. consulate general in Guangzhou, China, a 
position she has held since 2012.
    Previously, Ms. Galt served in the Department of State as 
Senior Advisor in the Bureau of Public Affairs from 2011 to 
2012; Public Affairs Advisor at the U.S. Mission to the North 
Atlantic Treaty Organization in Brussels, Belgium; and Deputy 
Director, Office of Public Diplomacy, Bureau of East Asian and 
Pacific Affairs from 2008 to 2010. She also served as public 
affairs officer, U.S. consulate general, Shanghai in China; 
assistant cultural affairs officer, U.S. Embassy in Beijing; 
assistant public affairs officer, U.S. consulate in Mumbai; and 
information officer, American Institute in Taiwan.
    Ms. Galt earned a bachelors of the arts, as I mentioned, 
from Colorado College; M.A. from Johns Hopkins University 
School of Advanced International Studies; and an M.S. from the 
National Defense University.
    She has won numerous awards from both the Department of 
State and earlier from the United States Information Agency. 
She speaks Mandarin Chinese, French, Italian, Spanish, and 
Serbo-Croatian.
    Welcome, Ms. Galt. I look forward to your comments today.

         STATEMENT OF JENNIFER ZIMDAHL GALT, NOMINATED 
                  TO BE AMBASSADOR TO MONGOLIA

    Ms. Galt. Thank you very much.
    Mr. Chairman, Ranking Member Cardin, Senator Kaine, it is 
an honor to appear before you as President Obama's nominee to 
be Ambassador to Mongolia.
    I am deeply grateful for the confidence the President and 
Secretary Kerry have shown in me, and if confirmed, I look 
forward to working closely with this committee to build on the 
already strong ties between the United States and Mongolia.
    My career in the Foreign Service spans 27 years, most of 
them spent in Asia. I joined the Foreign Service out of a 
commitment to serve my country and have consistently sought 
assignments where I felt I could make a difference and 
contribute to advancing an important relationship.
    The love and support of my family has sustained me 
throughout. I would like to take this opportunity to express my 
gratitude to my husband, Fritz, and my children, Phoebe and 
Dylan, who have traveled the globe with me, and to my father, 
Bob Zimdahl, and my brothers, Randy, Bob, and Tom. I am 
enormously proud that my daughter Phoebe, a rising college 
junior, is here with me today.
    This is an exciting year for United States-Mongolia 
relations, as we mark the 25th anniversary of Mongolia's 
decision for democracy, a milestone that the Senate recognized 
in its June 1 resolution. Our partnership has grown stronger 
since then-Secretary Baker first visited the newly democratic 
Mongolia in 1990. As the only former Soviet satellite in East 
Asia to choose democracy, Mongolia is an important model in the 
region and, as the saying goes, punches above its weight on 
issues of strategic interest to the United States, including 
coalition military efforts, peacekeeping, and the promotion of 
democratic principles and values. Our relationship is one of 
shared interests and is characterized by enormous potential.
    There are many opportunities for the United States to 
deepen our partnership with Mongolia. I would like to highlight 
a few where I would focus my attention, should I be confirmed 
as Ambassador.
    Mongolia and the United States share a common interest in 
promoting peace and stability. Mongolia is a stalwart partner 
in Afghanistan and deploys capable peacekeepers wherever they 
are needed, including currently in Sudan and South Sudan. Just 
last week, the United States and Mongolia conducted our yearly 
multinational peacekeeping exercise, Khaan Quest. Mongolia 
demonstrates leadership in international fora to promote 
democracy and human rights, such as the Freedom Online 
Coalition and the Community of Democracies. Mongolia is a model 
of democracy and has demonstrated a willingness to mentor 
others in the region, offering training and exchanges with 
leaders from Burma to Kyrgyzstan. If confirmed, I would welcome 
the opportunity to work with Mongolian officials to advance our 
shared interests in these critical areas.
    Recent high-level engagement in Mongolia has demonstrated 
our commitment to enhancing commercial opportunities for U.S. 
companies. In the last 6 months, we resumed trade and 
investment framework agreement talks, launched a new economic 
policy dialogue, and the Millennium Challenge Corporation began 
the process of developing a second compact with Mongolia. Each 
of these initiatives is an opportunity to expand economic 
growth, model responsible business conduct, promote trade and 
investment, and create opportunities for U.S. companies. The 
Mongolian Government demonstrated its interest in attracting 
foreign investment by signing and ratifying the U.S.-Mongolia 
Transparency Agreement in December 2014. The Mongolian Prime 
Minister is traveling to Washington and New York this week to 
deliver the message that Mongolia is open for business, our 
business.
    Mongolia's recent progress on a major copper and gold mine 
with a Western company signaled to the international community 
its renewed seriousness of purpose in attracting foreign direct 
investment. With large reserves of coal, copper, gold, uranium, 
and other minerals, there are many opportunities for U.S. 
companies in mining and related sectors. If confirmed, I would 
support these opportunities by actively informing potential 
U.S. investors about the investment climate and advocating on 
their behalf.
    I believe that two key components of U.S. support for 
Mongolia's democracy and its independence and leadership in the 
region are engagement with its nascent civil society and 
deepening people-to-people ties. If confirmed, I would continue 
the work of my predecessors in areas such as the rights of 
persons with disabilities. I would, if confirmed, continue our 
robust subnational cooperation as well, including the Alaska-
Mongolia State Partnership and the sister city relationship 
between Ulaanbaatar and Denver in my home State of Colorado. If 
confirmed, I would also look forward to supporting one of our 
largest Peace Corps programs anywhere, with over 150 volunteers 
in country. Peace Corps Volunteers work side by side with 
Mongolians in English teaching, health care, and community 
youth development.
    Mr. Chairman, members of the committee, it would be the 
highest honor for me to serve our country as Ambassador to 
Mongolia. If confirmed, I will do my utmost to ensure that the 
United States delivers on the strategic and historic 
opportunities of the next century of Mongolia's democracy.
    Thank you for considering my nomination, and I look forward 
to your questions.
    [The prepared statement of Ms. Galt follows:]

              Prepared Statement of Jennifer Zimdahl Galt

    Mr. Chairman, Ranking Member Cardin, members of the committee, it 
is an honor to appear before you as President Obama's nominee to be 
Ambassador to Mongolia. I am deeply grateful for the confidence that 
the President and Secretary Kerry have shown in me, and, if confirmed, 
I look forward to working closely with the Senate to build on the 
already strong ties between the United States and Mongolia.
    My career in the Foreign Service spans 27 years, most of them spent 
in Asia. I joined the Foreign Service out of a commitment to serve my 
country and have consistently sought assignments where I felt I could 
make a difference and where I could contribute to advancing an 
important relationship. My career has taken me to the former 
Yugoslavia, Taiwan, India, the U.S. Mission to NATO, and, multiple 
times, to China.
    The love and support of my family has sustained me throughout. I 
would like to take this opportunity to express my gratitude to my 
husband, Fritz, and my children Phoebe and Dylan, who have traveled the 
globe with me, and to my father, Bob Zimdahl, and my brothers Randy, 
Bob, and Tom. My father, in particular, has demonstrated his support by 
visiting us at every overseas post. I am enormously proud that my 
daughter, Phoebe, a rising college junior, is here with me today.
    This is an exciting year for U.S.-Mongolia relations, as we mark 
the 25th anniversary of Mongolia's decision for democracy, a milestone 
that the Senate recognized in its June 1 resolution. Our partnership 
has grown stronger since then-Secretary Baker first visited the newly 
democratic Mongolia in 1990. As the only former Soviet satellite in 
East Asia to choose democracy, Mongolia is an important model in the 
region and, as the saying goes, punches above its weight on issues of 
strategic interest to the United States, including coalition military 
efforts, peacekeeping, and the promotion of democratic principles and 
values. Our relationship is one of shared interests and is 
characterized by enormous potential.
    There are many opportunities for the United States to deepen our 
partnership with Mongolia. I would like to highlight a few areas where 
I would focus my attention, should I be confirmed as Ambassador.
    Sustaining our strong partnership across sectors: Mongolia and the 
United States share a common interest in promoting peace and stability. 
Mongolia is a stalwart partner in Afghanistan, and deploys capable 
peacekeepers wherever they are needed, including currently in Sudan and 
South Sudan. In April 2014, the United States and Mongolia signed a 
Joint Vision Statement that articulated the parameters for our security 
relationship, acknowledging the important role Mongolia plays as a 
stabilizing influence in Asia and commending Mongolia's support for 
U.N. peacekeeping operations around the world. Just last week, the U.S. 
and Mongolia conducted our yearly multinational peacekeeping exercise, 
Khaan Quest. Mongolia demonstrates leadership in international fora to 
promote democracy and human rights, such as the Freedom Online 
Coalition, hosting a successful annual conference in May; and the 
Community of Democracies, hosting the Ministerial in 2013. Mongolia is 
a model of democracy and has demonstrated a willingness to mentor 
others in the region, offering training and exchanges with leaders from 
Burma to Kyrgyzstan. If confirmed, I would welcome the opportunity to 
work with Mongolian officials to advance our shared interests in these 
critical areas.
    Strengthening economic ties and creating opportunities for U.S. 
businesses: Recent high level engagements in Mongolia have demonstrated 
our commitment to enhancing commercial opportunities for U.S. 
companies. In the last 6 months, we resumed Trade and Investment 
Framework Agreement talks, launched a new Economic Policy Dialogue, and 
the Millennium Challenge Corporation began the process of developing a 
second compact with Mongolia. Each of these initiatives is an 
opportunity to expand economic growth, model responsible business 
conduct, promote trade and investment, and to create opportunities for 
U.S. companies. Mongolia Government demonstrated its interest in 
attracting foreign investment by signing and ratifying the U.S.-
Mongolia Agreement on Transparency in Matters Related to International 
Trade and Investment (the Transparency Agreement) in December 2014. The 
Mongolian Prime Minister is traveling to Washington and New York this 
week to deliver the message to U.S. companies and Members of Congress 
that Mongolia is open for business, our business.
    Mongolia's recent progress on a major copper and gold mine with a 
Western company signaled to the international community its renewed 
seriousness of purpose in attracting foreign direct investment, which 
has declined 85 percent since 2012. With large reserves of coal, 
copper, gold, uranium, and other minerals, there are many opportunities 
for U.S. companies in mining and related sectors. If confirmed, I would 
support these opportunities by actively informing potential U.S. 
investors about the investment climate and advocating on their behalf. 
I would also continue our efforts to promote a more diversified economy 
in Mongolia and to generate increased commercial opportunities for U.S. 
companies, including support for Department of Commerce efforts such as 
the U.S.-Mongolia Business Forum, which this year will focus on 
agriculture. I would encourage good governance, transparency, and 
responsible business conduct, including through working with the 
Mongolian Government to implement the Transparency Agreement.
    Enhancing civil society and people-to-people ties with Mongolia: I 
believe that two key components of U.S. support for Mongolia's 
democracy and its independence and leadership in the region are 
engagement with its nascent civil society and deepening people-to-
people ties. If confirmed, I would continue the work of my predecessors 
in areas such as the rights of persons with disabilities, where, thanks 
to exchanges between government leaders and civil society, we are 
working with Mongolian parliamentarians on draft legislation that may 
include lessons learned from our Americans with Disabilities Act. I 
would, if confirmed, continue our robust subnational cooperation as 
well, including the Alaska-Mongolia State Partnership, which began with 
cooperation between the Alaska National Guard and the Mongolian Armed 
Forces, and has grown to include economic and social ties. I am 
particularly pleased that Mongolia's ties to the United States also 
include a sister city relationship between Ulaanbaatar and Denver, in 
my home State of Colorado. If confirmed, I also would look forward to 
supporting one of our largest Peace Corps programs anywhere, with over 
150 volunteers in country this year. Peace Corps volunteers work side 
by side with Mongolians in English teaching, health care, and community 
youth development. The efforts of these volunteers--our grassroots 
ambassadors in Mongolia--have been extremely effective.
    Mr. Chairman and members of the committee, it would be the highest 
honor for me to serve our country as Ambassador to Mongolia.
    America's security and prosperity are closely and increasingly 
linked to the Asia-Pacific. One of the most important tasks of American 
statecraft over the next decade is to lock in the increased 
investment--diplomatic, economic, strategic, and military--from the 
administration's sustained rebalance to the region. I welcome the 
opportunity to be on the front lines of this endeavor. If confirmed, I 
will lead a diplomatic mission of approximately 200 U.S. and Mongolian 
employees, representing five agencies. I will do my very best to ensure 
that all members of that community and their families have the 
leadership, security, and support they need to engage on behalf of the 
United States, so that Americans continue to sustain and benefit from 
the growth and dynamism in the Asian region. If confirmed, I will also 
do my utmost to ensure that the United States delivers on the strategic 
and historic opportunities of the next century of Mongolia's democracy.
    Thank you for considering my nomination. I look forward to your 
questions.

    Senator Gardner. Thank you, Ms. Galt, and thanks to all of 
you again for your comments this morning.
    And since I cannot just talk to you the entire time about 
Colorado, we will have to spread out the conversation a little 
bit.
    Mr. Davies, 38 years in the Foreign Service, your 
experience. Thank you for your commitment. What is the biggest 
change that you have seen over that time, starting from your 
first experiences to today in terms of public diplomacy?
    Ambassador Davies. In terms of public diplomacy, I think 
the explosion in--let us call it--the globalization of media 
has been the biggest change. When I came into the Foreign 
Service, the United States of America was reaching hearts and 
minds overseas in very traditional ways, publishing millions of 
copies of magazines for young Indians every month, for 
instance, using radio, touring music stars, and so forth. 
Today, we can reach young people in most countries in their 
shirt pockets through their mobile devices, and it requires a 
much more considered approach to how we get the word out to 
peoples all around the world, in particular young people, about 
America, what it stands for, and why it is that they should 
look to the United States as a friend and ally. So the 
challenge has become much more complex. But I think we are 
making the changes necessary to step up.
    Senator Gardner. And specifically to Thailand, in terms of 
the length of the military coup, do we have any idea how long 
we are looking at this lasting, this military exertion of 
power? Is there a way that the United States can influence the 
length of that or the timing or speed up the reforms for 
democracy, free elections, and sort of adding a third component 
to that with the support and loyalists to the former Prime 
Minister, is it even possible to have free and fair elections 
in Thailand?
    Ambassador Davies. Well, I believe that it is possible for 
Thailand to have free and fair elections. They have done it in 
the past. In recent generations, they have had decades' worth 
of experience of democracy. They can get back to that. The 
current junta, the coup government, claims that that is their 
aspiration. They have set up a very lengthy, somewhat elaborate 
process to get back to it. You are right. The goal post does 
continue to recede. That is a big concern. We want them to get 
back to democracy as soon as possible. We would like to see 
elections very soon.
    But at the end of the day, the truth is this is up to 
Thailand, its leadership, and its people to work out. But I 
have confidence they can do it. And if confirmed, I am going to 
bend every effort to convey to them the views of the United 
States and would encourage them to get back on that democratic 
path.
    Senator Gardner. Thank you.
    Mr. Heidt, Hun Sen has ruled Cambodia since the mid-1990s 
basically without interruption. What do you see as Cambodia's 
likely political future, should Hun Sen move toward retirement? 
Are there scenarios where there could be military interference 
if there is a retirement there as well? What do you do in such 
a scenario?
    Mr. Heidt. Thank you for the question, Senator.
    There has been a lot of stasis at the top of Cambodia's 
ruling elite in the last 20 years. Of course, in 2013, we had a 
very good and meaningful election for Cambodia. It was the most 
open election in Cambodian history. Public participation was 
very broad, very enthusiastic. The opposition party did much 
better than anyone expected and even despite some pretty deep-
seated irregularities in the election process.
    So it left many observers with the feeling that with a 
reformed National Election Commission and some additional 
support from the international community, Cambodia can take 
another step forward in the next election just as they took a 
step forward in 2013. So there is optimism that with continued 
support, we could see a better democratic future for Cambodia.
    I do not deny, of course, that there are also concerns 
about increased military--the possibility under the new law for 
increased military activity in the campaign. That law does 
permit, for the first time in Cambodia, the military and senior 
government officials to be involved. And that is a concern and 
it is something we are going to have to monitor very closely. 
If confirmed, I hope to do that.
    Senator Gardner. You mentioned the opposition party. How is 
the power-sharing arrangement working between the two parties, 
the CPP, the CNRP?
    Mr. Heidt. Senator, that is a $64,000 question with respect 
right now to Cambodia. Both the Prime Minister and Sam Rainsy--
they have both spoken publicly about their desire to start this 
culture of dialogue. The relationship is clearly more 
cooperative than at any time in the 20 years since I have been 
following Cambodia. Of course, as a general rule, we encourage 
dialogue in Cambodia. We think that is very important to have 
constructive dialogue, peaceful dialogue that can help Cambodia 
put forward the reforms and policy changes they need to improve 
the lives of ordinary Cambodians. Whether this new 
collaboration between the two will lead to that kind of genuine 
change, I think it is much too early to say, very honestly, and 
I think it is something that if confirmed--it is definitely 
something we are going to keep a very close eye on.
    Senator Gardner. Thank you, Mr. Heidt.
    Ms. Galt, in your opening remarks, you talked about 
Mongolia being the only former Soviet satellite state that had 
moved or transitioned toward democracy. Yet, in preparing for 
this morning's hearing, the background briefings on Mongolia--
the corruption challenges to--corruption at the local level 
throughout the government. Yet, we have had six Presidential 
elections, open elections there. What more can the United 
States do to address the full transition to a democracy, 
reducing corruption, but strengthening and building democracy?
    Ms. Galt. Thank you, Senator, for your question.
    Indeed, Mongolia is a democracy but it is a young 
democracy, and it shares many of the same challenges as other 
young democracies in terms of solidifying the rule of law.
    And I think there are two areas where we can continue our 
work with Mongolia--and if confirmed, I would look forward to 
doing that--to solidify and strengthen some of their 
institutions to combat corruption.
    One is to support Mongolia's leadership in international 
fora to promote democracy. Mongolia has shown a willingness to 
reach beyond its borders, to export both democracy and 
security. And we continue to work with Mongolia to strengthen 
its own institutions. And recently our increased economic 
engagement is very important in that regard. So with its 
signing of the U.S.-Mongolia Transparency Agreement, Mongolia 
has indicated its willingness to improve its own institutions 
to combat corruption and to combat transnational crime as well. 
Our Trade and Investment Framework Agreement talks and our new 
Economic Policy Dialogue gives us other platforms to talk about 
institutional reforms.
    The Millennium Challenge Corporation is another tool that 
we can use to enhance Mongolia's democratic behavior. MCC 
leadership tells me that based on the successful completion of 
their first compact, they believe very strongly that Mongolia 
has learned many lessons from working with us on the first 
compact. And, if confirmed, I would look forward to working 
with Mongolia and working with the Millennium Challenge as they 
develop a second compact for Mongolia.
    Senator Gardner. Thank you, Ms. Galt.
    Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Once again, thanks to our witnesses.
    In each of your countries, I think to a large extent the 
success of our mission depends upon us standing strong on the 
principles of our country, the universal principles that we 
espouse on human rights, good governance, anticorruption, 
rights of all individuals. That to me is the bedrock of 
America's foreign policy. And we have seen too many places in 
the world where we have deviated from that commitment. The 
stability that we hoped for did not exist and will not exist.
    So in all three of the countries, there are challenges in 
trafficking in persons. Thailand is probably the worst. It is a 
Tier 3 country, which means that it has failed. There are 
reportedly tens of thousands of victims in Thailand, mainly 
from other countries, that have been trafficked into Thailand 
for labor abuse and for sex trafficking. Obviously, that cannot 
continue.
    It is more of a challenge because in Thailand we are now 
past the 1-year anniversary of this coup, and it was not the 
first coup in modern history. And I must tell you my patience 
is running thin with Thailand. We talk about a commitment to 
early elections, and when a country is operating under a coup 
government, human rights are always going to be challenged, as 
we have seen.
    So, Mr. Davies, I appreciate your view that we cannot 
intercede into the internal politics of a country, and I agree 
with that. But for the sake of the rights of the people of 
Thailand and for U.S. principles, there must be an urgency in 
Thailand proceeding with democratic elections and dealing with 
its human rights issues.
    Your comments?
    Ambassador Davies. Thank you very much, Senator. I think 
that is exactly right, and I think that is job one for anyone 
who represents the United States in Thailand to bring home to, 
in particular, the current leadership the importance of moving 
quickly, swiftly, allowing for, if need be catalyzing an open, 
inclusive public debate about the way forward for Thailand. I 
believe most Thais do want to get back to democracy. The 
situation now is untenable. It is not good for Thailand, first 
and foremost, to have a suspension of civil liberties, of 
sending civilians through the military justice system, and so 
forth.
    So for me, if confirmed, this would be something I would 
lean into very hard to convey publicly and privately the 
importance we attach to Thailand's getting back to the 
democratic path, breaking this cycle of periodic military coups 
that, quite frankly, goes all the way back three generations to 
the 1930s, and putting Thailand once and for all firmly and 
finally on the path to democracy.
    So I take your words to heart. I want to work with this 
committee to see this through. I do think it is not a job that 
is going to be done in an instant because they are a divided 
society, divided polity. There are serious issues that have to 
be worked out domestically, which is why I said it really is, 
first and foremost, their challenge to confront. But I think 
you are right. We have a role to play. They listen to us. We 
are going to use that bully pulpit.
    Senator Cardin. I thank you for your answer. We recognize 
it will not happen overnight. But it is already over a year 
since this coup, and I think many of us expected further 
progress than we have seen to date. So there is an urgency 
here. I just hope that you will transmit that to the people of 
Thailand that we are with them, but we will not tolerate the 
suspension of civil liberties.
    Ambassador Davies. Yes, sir.
    Senator Cardin. Mr. Heidt, in regards to Cambodia, they are 
not doing much better in trafficking. They have been downgraded 
to a Tier 2 Watch List country. As has already been pointed 
out, they are a poor country. So it is interesting that they 
are also designated because they are a source of trafficking. 
So it is not only that they are victimized by people in 
Cambodia being trafficked out, there are also people that are 
being victimized within Cambodia. So they have human rights 
issues.
    The most recent concern that has been expressed by human 
rights groups is the draft NGO law, which has serious concerns 
among NGOs about whether they are going to be able to operate 
effectively in Cambodia.
    So would you just share with me and this committee your 
commitment to advance the basic human rights as our 
representative, if confirmed, in Cambodia?
    Mr. Heidt. Thank you very much, Senator.
    Of course, promoting democracy and human rights has been a 
central part of our program in Cambodia since I was there 
before, ever since the 1993 Paris Peace Accords.
    In the area of trafficking in persons, it is an area where 
U.S. involvement has made a real difference. Both directly and 
through NGOs, we have really been able to give Cambodia good 
assistance, and as a result, as I mentioned in my statement, 
they have been able to make substantial progress on the issue 
of child sex trafficking. Now, that of course, is a 
particularly pernicious and dreadful problem, and I think it is 
important to give them credit for that progress.
    At the same time, as you mentioned, there is a pretty 
substantial labor trafficking problem in Cambodia flowing out 
to neighboring countries, flowing into Cambodia from its 
neighboring countries. And so certainly there is much more work 
to be done in that area in terms of building cooperation 
between Cambodia and the labor-receiving countries, especially 
Malaysia. There is some evidence of complicity by government 
officials in trafficking--that is a big problem--and as well as 
pretty much a complete lack of victim assistance. When we find 
victims of trafficking, the government has very little 
assistance that they can offer.
    So that is something I am absolutely committed to working 
on that issue while I am out there, if confirmed. Like I say, 
it has been an area where we have great success before that we 
can be proud of, and we will continue to do that.
    On the NGO law, of course, the concern there is that it 
will limit the ability of the NGOs to do some of the good work 
they are doing. NGOs perform a range of important services in 
Cambodia. We have spoken to the government and publicly about 
this law, and we frankly do not really see a need for it. We do 
not think there is a giant problem that needs to be solved by 
that. But if the government goes ahead with the law, as it 
appears very likely--they considered it in the National 
Assembly today in Phnom Penh--today, their time. They 
considered it and pushed it out to three separate National 
Assembly commissions. So it appears that it is going to move 
forward. We have counseled them to consult widely when they do 
it and to do it with a light touch, to focus on basic 
transparency issues, not to make it a giant problem that really 
squelches civil society in Cambodia.
    Senator Cardin. Thank you for that answer.
    If the chair would indulge me for one remaining question. 
Ms. Galt, Mongolia is an encouraging country. There is a lot of 
progress being made. They are Tier 2 on trafficking, which 
means they still are not meeting the minimum standards, 
although the report does point out they are making progress. So 
they are moving in the right direction.
    As I also pointed out, they are one of our allies. But 
there are challenges regarding human rights and concerns about 
internationally recognized freedom for its citizens.
    I want to get your response to a potential issue, and that 
is, Mongolia is resource-rich, which can become a problem for a 
country if it is not managed properly. We have seen it as a 
source of corruption in other countries. We have seen it as a 
source of environmental problems in other countries. We have 
seen it as a management issue creating problems with democracy 
in other countries.
    My question is, How will you focus on our mission in 
Mongolia as to how they handle their resources to make sure 
that it is used for the benefit of the people of Mongolia and 
not used as a source that could be problematic for funding 
corruption or antidemocratic principles, which we have seen in 
too many countries around the world?
    Ms. Galt. Thank you, Senator, for that question.
    First, on the issue of trafficking, indeed, this continues 
to be a concern in Mongolia, and if confirmed, I would work 
very closely with the Government of Mongolia to combat 
trafficking. We have a U.S. Government program working with an 
NGO in Mongolia to raise public awareness of trafficking and to 
work to implement Mongolia's antitrafficking legislation. So I 
would look forward, if confirmed, to continuing on that front.
    I think on the corruption issue, you are absolutely right. 
This is very much on Mongolia's radar and very much on our 
radar, as Mongolia develops its rich resources.
    I think there are, again, two areas, as I said earlier, 
where we can continue to work closely with Mongolia to 
encourage them to develop these resources in a transparent and 
fair way. And if confirmed, I would look forward to doing that.
    The first is to continue to support Mongolia's leadership 
in international institutions, including the Freedom Online 
Coalition and the Community of Democracies, which are fora in 
which Mongolia can learn best practices and develop its own 
mechanisms and techniques for combating corruption domestically 
and for developing its economy.
    And then the second is our economic engagement. I think 
through working with the Government of Mongolia to implement 
the recently signed and ratified Transparency Agreement, that 
gives us an opportunity to work very closely with them to 
develop procedures, develop their institutions, and strengthen 
their institutions to combat corruption. So I would look 
forward to working with them on both of those fronts in that 
challenge area.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And to the witnesses and to the entire panel of the seven 
nominees who are before us today, I am only able to be here for 
the first panel. And I regret that because you all really do a 
credit to the Nation with your extensive service. And I thank 
each of you and I also thank your families and friends who are 
here and who have been supportive.
    Ms. Galt, if I could start with you since we are just 
finishing on Mongolia, I am fascinated by a number of aspects 
of the country and its transition from socialism to democracy. 
In the Economist Intelligence Unit's Democracy Index for 2014, 
Mongolia was ranked 61st out of 167 countries ranked in the 
democracy index. For a democracy this new that has transitioned 
from socialism, that is not bad. If you dig into the ranking, 
the EIU classifies Mongolia as a, quote, flawed democracy with 
high marks for electoral processes and civil liberties but 
lower marks for government functioning, political culture, 
including a high degree of corruption in local politics.
    Talk a little bit about your game plan if you are confirmed 
to go in and accelerate the pro-democracy trends and 
institutional improvements that Mongolia seems to be embracing 
but that need improvement.
    Ms. Galt. Indeed, if confirmed, this would be one of my 
highest priorities to work closely with the Government of 
Mongolia to strengthen their institutions, to combat 
corruption, and to ensure a transparent and free market for 
external investment. And I think encouraging and advocating for 
more U.S. investment in Mongolia is one way that would be very 
useful and productive for encouraging transparent economic 
engagement in Mongolia. So that is one area that I would work 
on, if confirmed.
    The second area is through the Millennium Challenge 
Corporation. As I mentioned earlier, the Millennium Challenge 
leadership tells me that they feel very strongly that Mongolia 
has learned some good lessons from the first compact. And as 
they are engaging in their constraints analysis and 
negotiations on a potential second compact for Mongolia, that 
will be a tool that we can use to further influence the 
institutional development and to ensure that Mongolia's 
economic growth going forward is equitable and fair.
    I think a third area I mentioned before, but we have an 
ongoing engagement and plans for a new program with the 
Government of Mongolia working with them on justice reform. And 
that is a third area that I would have a high priority in terms 
of improving their institutions and their capacity to handle 
corruption and to deal transparently with corruption issues.
    Senator Kaine. There have been some high profile cases in 
Mongolia where foreign investors have been caught up in 
business disputes and then blocked exit visas to leave, 
Canadians, in one instance an American. Those have to create 
challenges in terms of encouraging more investment.
    What is the progress of the Mongolian Government in putting 
reforms in place that would avoid those unless absolutely 
necessary?
    Ms. Galt. Indeed, I think investor confidence is at a low 
point right now in Mongolia. But, again, our recent economic 
engagement gives me a lot of encouragement as to potential for 
a positive trend in the future. And if confirmed, I would 
continue to work very closely on our economic front. So, number 
one, implementing the Transparency Agreement is one very 
important platform. A second is our Trade and Investment 
Framework Agreement and our Economic Policy Dialogue, which 
gives us another opportunity to engage. And then finally, the 
Millennium Challenge would be another opportunity to grow 
Mongolia's capacity in terms of its institutions. So those 
would be three areas where I would work very closely were I to 
have the opportunity.
    Senator Kaine. And finally, the United States is sort of 
deemed by Mongolia as the most important of its, quote, ``third 
neighbors,'' so the neighbors that do not have borders with 
Mongolia. As we are dealing with so many issues on this 
committee and in the Senate generally about bilateral relations 
between the United States and China and the United States and 
Russia, I am interested in how Mongolia handles those bilateral 
relationships and what are the current kind of temperature in 
those sets of bilateral relationships between Mongolia and 
China and Russia.
    Ms. Galt. Indeed, Mongolia is in a tough neighborhood. I 
think the chairman mentioned sandwiched between Russia and 
China. And so it is very much in Mongolia's interest to 
maintain a stable, positive relationship with both Russia and 
China. Russia and China are both strong economic partners to 
Mongolia. China purchases 80-plus percent of Mongolia's 
resources. So it is very important for Mongolia to maintain a 
positive economic trade and political relationship with China.
    However, I think there is room for all of us. There is room 
for Russia and China and for Mongolia's third neighbors. And so 
if confirmed, I would look forward to continuing to enhance 
both our political, economic, and military partnership with 
Mongolia.
    I think in addition to the strength of those aspects of our 
partnership, U.S. soft power is a very powerful force in 
Mongolia. Young people are looking to the United States. Young 
people are studying English, thanks in large part to our Peace 
Corps over the years, and studying in the United States and 
returning to Mongolia. So the influence of the United States as 
a fellow democracy and our shared values is a powerful offset 
to the economic power of Mongolia's neighbors.
    Senator Kaine. Thank you for those answers.
    One question for you Mr. Heidt. I noticed that there are 
analysts that are concerned about the Prime Minister's 
placement of his sons in political positions of power within 
Cambodia and what that might portend in the future. We have 
seen in other nations around the world, whether it is Libya or 
Egypt or Syria, once a structure of a ruling family starts to 
be kind of perpetuated, that can lead to really significant 
internal dissent.
    What is the likelihood of that or your assessment in 
Cambodia? What can the United States do to promote a more 
vigorous democracy, not confined just to a single family?
    Mr. Heidt. Thank you very much, Senator, for that question.
    Of course, Hun Sen's sons, as you mentioned--several of 
them are active, very active in the CPP. Our sense is looking 
at that, that it is like many political parties. It is a 
complex structure. There are lots of people who want to move to 
the top. The folks that I have talked to--there is not a sense 
that there is some preordained path for the two of them. It is 
not North Korea. It is a big competitive party with lots of 
ambitious people in it. And so even despite the obvious birth 
advantages the two have, my sense is that there is no 
guaranteed route to the top for them.
    Of course, the other issue is, as we saw in 2013, electoral 
politics in Cambodia are getting more competitive. And the 
extent to which the opposition is able to rally and unify 
around strong candidates, promote good candidates from below, 
the extent to which, with international help, Cambodia's 
election institutions get stronger and can deliver better 
elections, those things also make it less likely that some sort 
of family system develops in Cambodia. So I do think it is a 
very competitive situation and one, of course, if confirmed, I 
will keep an eye on.
    Senator Gardner. Thank you. And thank you to the witnesses 
today for your testimony, your comments, and your willingness, 
again, to serve.
    And in breaking with Senate tradition, we are going to stay 
on schedule and stand in a short recess until Senator Risch 
joins us and we reconvene at 11 o'clock.

[Pause.]

            OPENING STATEMENT OF HON. JAMES RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch [presiding]. Thank you all for coming. This 
Subcommittee on Near East, South and Central Asia of the 
Foreign Relations Committee will come to order.
    And today we have for hearing four nominees for different 
positions around the world.
    First of all, I want to thank all of our nominees for being 
here today and your families and for your willingness to serve. 
The countries you are nominated to are tough posts, to say the 
least, and it really highlights that you and your families are 
willing to make the sacrifices to go and to serve in those 
posts. We really do appreciate your efforts in that regard.
    First, I am going to introduce all of you at once. I want 
to talk about each of the countries very briefly and talk about 
where we are with them, and hopefully, you will correct me if I 
am inaccurate or add to that if you think that is appropriate.
    Obviously, Mr. Hale is going to Pakistan. And while the 
official U.S. policy toward Pakistan is to assist the creation 
of a more stable democratic and prosperous Pakistan, the United 
States-Pakistan relationship is an important but equally 
frustrating relationship, as we all know. Support for U.S. 
presence in Afghanistan has been vital, but over the years, 
Pakistan's support for the Taliban in Afghanistan and the safe 
havens in the FATA has set back efforts to move Afghanistan and 
the region forward. The idea of a new Silk Road across South 
and Central Asia would bring economic prosperity to many, 
especially in Pakistan, but border disputes with India cripple 
the cooperation.
    Recently this spring, a number of us had the opportunity to 
meet a delegation from the Pakistani governing body, the 
Parliament that were here. And I have to say I think all of us 
were impressed with their sincerity and their commitment to do 
the things that would better the United States-Pakistan 
relationship.
    The June 2014 operation against militant groups in FATA was 
a good effort to bring more stability to the border with 
Afghanistan, and hopefully the United States-Pakistan strategic 
dialogue can produce more tangible results politically and 
economically.
    The past several years have shown us that despite enormous 
U.S. aid, Pakistan will only prosper when the country can 
create a stable environment for trade and foreign direct 
investment. To achieve this kind of success, the international 
community needs a serious partner in the Pakistan Government 
that can deepen its political institutions and work through its 
relationship with India and others. After our meeting with the 
delegation from Pakistan, I think all of us believe that they 
have a sincere commitment to attempt to do that.
    Regarding Nepal, the recent earthquake in Nepal has been 
tragic and the international commitment to Nepal has shifted 
accordingly. The outpouring of support from around the world 
requires a sustained focus on rebuilding the country, but donor 
coordination is going to be a daunting task and we must make 
sure both U.S. assistance and other aid is timed appropriately 
and not wasted on projects that are neither needed nor helpful 
for the people of Nepal. These kinds of things happen, of 
course, when you do get a flood of cash that comes in after a 
serious problem as has taken place in Nepal.
    In the aftermath of the earthquake, I also hope there will 
be a renewed sense of unity that can help Nepal move forward 
and find the political consensus necessary to finally draft a 
new constitution which, as we all know, they have been 
struggling with for some time.
    In addition, you will have a particularly important job 
taking care of our people. While Embassy Staff work to help 
Nepal build, they are also rebuilding their own lives and 
making sure they get their own support, and that will be 
crucial.
    Regarding Sri Lanka and the Maldives where Mr. Keshap is 
headed, the January election and change in power has created a 
substantial shift for the region. The government's efforts to 
tackle corruption, deepen reconciliation, and rebalance its 
position among the other regional powers provide an enormous 
opportunity for Sri Lanka. The new President, we hope, will 
maintain his commitment to change, and if indeed he follows 
through on that, it is going to be a sea change for the region.
    Ms. Gwaltney is going to the Kyrgyz Republic. Central Asia, 
as we all know, has been a hard place for the United States. 
English is often the fourth or fifth language spoken, if at 
all, in the region. The dominance of Russia and the proximity 
of China, as well as the Soviet legacy, presents significant 
challenges and tempered expectations. The Kyrgyz Republic 
clearly embodies all of these intersecting challenges. However, 
there is still a lot of work we can do leading up to the 
parliamentary elections in October, and hopefully we can find 
some success helping to develop their economy. But I worry 
about the destabilizing role that Russia can play for its own 
strategic interests.
    With that said, I look forward to all of your testimony.
    First of all, I would like to briefly introduce each of the 
nominees here starting with Mr. David Hale, who has been 
nominated for the Pakistan posting. Mr. Hale is a native of New 
Jersey who also received his undergraduate degree from the 
Georgetown School of Foreign Service and joined the Foreign 
Service in 1984. Mr. Hale has extensive experience in the 
Middle East, serving at posts in Israel, Jordan, Lebanon, 
Bahrain, and others, including his most recent as U.S. 
Ambassador to Lebanon. He is clearly experienced in tough 
postings and jobs that might make Pakistan look like an easy 
assignment.
    Ms. Gwaltney is going to the Kyrgyz Republic. Ms. Gwaltney 
is from Woodland, CA, with a B.A. from UC-Davis, a masters from 
George Washington University. Again, her extensive experience 
working in and around Russia. Ms. Gwaltney has substantial 
experience to support her in this new role.
    Ms. Teplitz, appointed to Nepal, was born in Chicago, IL, 
and received her B.A. at Georgetown University. She has served 
in numerous positions at the State Department and the region. 
With her management background and the current challenges in 
Nepal, she is well suited to assume this position.
    Mr. Keshap, who has been appointed to serve in Sri Lanka 
and the Maldives, was born in Nigeria, educated at the 
University of Virginia with both a bachelors and masters 
degree. Mr. Keshap has extensive experience with Southeast 
Asia, including his current post as the Deputy Assistant 
Secretary of the Bureau of South and Central Asian Affairs at 
State. He has won numerous awards for his work and, at the same 
time, has found time to well raise his four children.
    So in any event, thank you all again for the willingness to 
serve and your families likewise for the willingness to serve.
    Now we would like to hear a few minutes from each of you. 
We will start with Mr. Hale, who has been nominated for 
Pakistan.

         STATEMENT OF HON. DAVID HALE, NOMINATED TO BE 
         AMBASSADOR TO THE ISLAMIC REPUBLIC OF PAKISTAN

    Ambassador Hale. Well, Mr. Chairman, thank you very much 
for the introduction and thank you for the opportunity to 
appear before you today as President Obama's nominee to be the 
next American Ambassador to the Islamic Republic of Pakistan. I 
am humbled by the confidence President Obama and Secretary 
Kerry have placed in me, and if I am confirmed, I look forward 
to working with the Senate on how best to advance U.S. 
interests in Pakistan.
    I have had the privilege of serving in the Foreign Service 
for 31 years, and most of my career has been spent advancing 
U.S. interests in the Middle East and the Muslim world as 
Ambassador to Lebanon, as U.S. Special Envoy to the Middle 
East, and earlier as Ambassador to Jordan.
    During my previous tours as Ambassador, my highest priority 
was the safety and security of all American personnel, 
information, and facilities, as well as the safety and security 
of American citizens. And if confirmed, I will have no higher 
priority in Pakistan.
    Pakistan is a strategically important country for achieving 
U.S. national security interests. We have a strong stake in 
Pakistan's ability to combat militancy and strengthen its 
democratic institutions. And broadly speaking, the United 
States has four core interests in Pakistan: first, defeating 
al-Qaeda and countering militancy; second, nonproliferation and 
nuclear security; third, political and economic stability which 
includes respect for human rights; and fourth, regional 
stability, including improved relations with Afghanistan and 
with India.
    And while there is more to be done on all fronts, the last 
few years have witnessed progress toward these goals as the 
United States and Pakistan have built a more stable, forthright 
relationship. With regard to counterterrorism, Pakistan has 
taken important actions that have brought to justice several 
senior al-Qaeda leaders. It launched a significant military 
operation in North Waziristan last June, capturing large 
weapons caches and closing safe havens for multiple terrorist 
groups. We welcome Pakistan's commitment to target all militant 
groups on Pakistani soil equally, an objective that is 
absolutely in the interest of the United States and one on 
which, if confirmed, I will work closely with the Pakistan 
Government to advance.
    We and the Pakistanis also share deep concern and must 
remain vigilant for any sign that ISIL is gaining a foothold in 
Pakistan. Our shared strategic interests extend well beyond any 
particular group. It is from the ungoverned spaces in remote 
parts of the border region that spring a multitude of threats, 
both militant and criminal, affecting Pakistan, the region, and 
the broader world, including America.
    We are also actively engaged with Pakistan on strategic 
stability and nonproliferation issues. While our governments do 
not see eye to eye on all issues, we share a number of common 
interests, including the high importance of ensuring nuclear 
security and preventing the proliferation of weapons of mass 
destruction.
    Relations with its neighbors play an important part in 
Pakistan's security and prosperity. Pakistan has undertaken 
important outreach to Afghanistan following the Afghan 
election, and the two countries have made some progress toward 
terrorist safe havens on both sides of the border. Given the 
drawdown in United States forces in Afghanistan, it is all the 
more critical that relations between Pakistan and Afghanistan 
be strong and cooperative and that Pakistan continue to put 
pressure on the Taliban to join an Afghan-led peace process. 
Pakistan's relationship with India is critical to Pakistan's 
future, and the normalization of relations between those two 
countries is vital both to them and to the region.
    Experience has demonstrated that sustained, consistent 
engagement with Pakistan provides us with the best chance to 
address challenges and advance our core interests. The United 
States-Pakistan strategic dialogue is the mechanism that 
underpins our cooperation in areas of shared interest, from 
counterterrorism to energy, from economic growth to defense and 
security. All six of the strategic dialogue working groups have 
met within the last year.
    U.S. civilian assistance to Pakistan has delivered 
impressive results and must continue. Our signature projects in 
Pakistan have added 1,500 megawatts to Pakistan's electric grid 
and built over 1,100 kilometers of road.
    U.S. security assistance to Pakistan is equally important. 
It directly supports Pakistan's ability to conduct 
counterinsurgency operations, clear terrorist safe havens, and 
stem the flow of deadly improvised explosive devices, which 
have killed far too many civilians and security personnel.
    Should I be confirmed, I look forward to working with 
Congress and this committee, with our extraordinary team in 
both Washington and Pakistan, with the government and people of 
Pakistan and with the community of Americans of Pakistani 
descent here in the United States.
    And, Mr. Chairman, Ranking Member Murphy, let me reiterate 
how deeply honored I am to be here today and to be nominated as 
the Ambassador to the Islamic Republic of Pakistan. Thank you 
very much for considering my nomination. I would be pleased to 
answer any questions.
    [The prepared statement of Ambassador Hale follows:]

              Prepared Statement of Ambassador David Hale

    Mr. Chairman, Ranking Member Murphy, members of the committee, 
thank you for the opportunity to appear before you today as President 
Obama's nominee to be the next American Ambassador to the Islamic 
Republic of Pakistan. I am humbled by the confidence President Obama 
and Secretary Kerry have placed in me. If I am confirmed by the Senate, 
I look forward to working with the Senate on how best to advance U.S. 
interests in Pakistan.
    I have had the privilege of serving in the Foreign Service since 
1984. Most of my career has been spent advancing U.S. interests in the 
Middle East and the Muslim world, including most recently as Ambassador 
to the Lebanese Republic. Before that, I served as the U.S. Special 
Envoy for Middle East Peace, and earlier, as Ambassador to Jordan.
    During my previous tours as Ambassador, my highest priority was the 
safety and the security of all American personnel, information, and 
facilities, as well as the safety and security of American citizens. If 
confirmed, I will have no higher priority in Pakistan.
    Pakistan is a strategically important country for achieving U.S. 
national security interests. We have a strong stake in Pakistan's 
ability to combat militancy and strengthen its democratic institutions. 
Broadly speaking, the United States has four core interests in 
Pakistan: first, defeating al-Qaeda and countering militancy; second, 
nonproliferation and nuclear security; third, political and economic 
stability which includes respect for human rights; and fourth, regional 
stability, including improved relations with Afghanistan and India.
    While there is more to be done on all fronts, the last few years 
have witnessed progress toward these goals as the United States and 
Pakistan have built a more stable, forthright relationship. With regard 
to counterterrorism, Pakistan has taken important actions that have 
brought to justice several senior al-Qaeda leaders. It launched a 
significant military operation in North Waziristan last June, capturing 
large weapons caches and closing safe havens for multiple terrorist 
groups. We welcome Pakistan's commitment to target all militant groups 
on Pakistani soil equally--an objective that is absolutely in the 
interests of the United States, and one on which, if confirmed, I will 
work closely with the Pakistani Government to advance. We and the 
Pakistanis also share deep concern and must remain vigilant for any 
sign that ISIL is gaining a foothold in Pakistan. Our shared, strategic 
interests extend well beyond any particular group; it is from the 
ungoverned spaces in remote parts of the border region that spring a 
multitude of threats, both militant and criminal, affecting Pakistan, 
the region, and the broader world, including the United States.
    We are also actively engaged with Pakistan on strategic stability 
and nonproliferation issues. While our governments do not see eye to 
eye on all issues, we share a number of common interests including the 
high importance of ensuring nuclear security and preventing the 
proliferation of Weapons of Mass Destruction. We are pleased that 
Pakistan is fully engaged with the international community on nuclear 
safety and security issues, including as an active partner in the 
Nuclear Security Summit process.
    At the same time, Pakistan is an often boisterous democracy of 
nearly 200 million people with a growing economy. In 2013, it completed 
its first democratic transition from one elected civilian government to 
another. The Government of Pakistan has made real strides in unlocking 
Pakistan's growth potential, and is working to advance an economic 
reform program in close collaboration with the International Monetary 
Fund. Just last week, Moody's recognized the government's progress by 
raising its sovereign credit rating. Still, there is work to be done. 
Rule of law, tolerance, and respect for the rights of all citizens are 
guiding principles for all thriving democracies.
    Relations with its neighbors play an important part in Pakistan's 
security and prosperity. Pakistan has undertaken important outreach to 
Afghanistan following the Afghan election, and the two countries have 
made some progress against terrorist safe havens on both sides of the 
border. Given the drawdown in U.S. forces in Afghanistan, it is all the 
more critical that relations between Pakistan and Afghanistan be strong 
and cooperative, and that Pakistan continue to put pressure on the 
Taliban to join an Afghan-led peace process. Pakistan's relationship 
with India is critical to Pakistan's future. The normalization of 
relations between the two countries is vital, both to them and to the 
region.
    Experience has demonstrated that sustained, consistent engagement 
with Pakistan provides us with the best chance to address challenges 
and advance our core interests. The U.S.-Pakistan Strategic Dialogue is 
the mechanism that underpins our cooperation in areas of shared 
interest, from counterterrorism to energy, from economic growth to 
defense and security; all six of the Strategic Dialogue working 
groups--law enforcement and counterterrorism; economics and finance; 
energy; defense; strategic stability and nonproliferation; and 
education, science, and technology--have met within the last year.
    U.S. civilian assistance to Pakistan has delivered impressive 
results and must continue. Our signature projects in Pakistan have 
added over 1,500 megawatts to Pakistan's electric grid, and built over 
1,100 kilometers of road. Each year, the United States sponsors 
thousands of Pakistani exchange students to the United States--
including a larger investment in the Fulbright Program than anywhere 
else in the world. These are long-term investments which advance 
bilateral people to people exchanges, Pakistan's stability and growth, 
and help promote a pluralistic and tolerant society.
    U.S. security assistance to Pakistan is equally important and is 
directly supporting Pakistan's ability to conduct counterinsurgency 
operations, clear terrorist safe havens, and stem the flow of deadly 
improvised explosive devices (IEDs) which have killed far too many 
civilians and security personnel. Our security assistance, like our 
civilian assistance, is geared directly toward meeting critical U.S. 
national security objectives.
    Should I be confirmed, I look forward to working with Congress and 
this committee, our extraordinary team in both Washington and Pakistan, 
who are dedicated and accept risks in order to achieve the goals of the 
American people, with the government and people of Pakistan, and with 
the community of Americans of Pakistani descent here in the United 
States. Mr. Chairman, Ranking Member Murphy and members of the 
committee, let me reiterate how deeply honored I am to be nominated as 
the Ambassador to the Islamic Republic of Pakistan.
    Thank you very much for considering my nomination. I would be 
pleased to answer your questions.

    Senator Risch. Mr. Hale, thank you very much.
    We have been joined by Ranking Member Murphy, and if you do 
not have opening statement, we will move on.
    Senator Murphy. Keep going.
    Senator Risch. Ms. Teplitz, you are next. We would like to 
hear what you have to say.

        STATEMENT OF ALAINA B. TEPLITZ, NOMINATED TO BE 
     AMBASSADOR TO THE FEDERAL DEMOCRATIC REPUBLIC OF NEPAL

    Ms. Teplitz. Mr. Chairman, Ranking Member Murphy, it is an 
honor to appear before you today as the President's nominee for 
the U.S. Ambassador to Nepal. I am grateful for this 
opportunity to serve our country.
    And I would like to recognize some of my family who are 
with me today, my sons, Max and Miles Mellott. And a shout-out 
to those who could not be here because I would not be at this 
table without them and their support.
    Mr. Chairman, as you noted in your remarks, right now when 
people think of Nepal, they invariably think of the horrific 
earthquake of this past April and the tremendous damage it 
wrought. That tragedy has brought together the people of Nepal, 
the country's neighbors, and the international community to 
help the victims recover and the country rebuild.
    And while much has changed in Nepal since the earthquake, 
our overall priorities for the country remain the same: to 
strengthen its democracy, advance its economic growth, and 
improve its resiliency. If confirmed, I will work to advance 
these goals and build on the achievements of my predecessors 
and our 60 years of positive engagement with Nepal.
    I will speak first about the last objective, improved 
resiliency, and then discuss the other two priorities. At the 
top, I would like to extend the Department's profound gratitude 
to Congress for its support for seismically safe housing for 
U.S. Embassy personnel in Kathmandu. It saved the lives of our 
mission personnel and enabled them to immediately assist with 
rescue and relief efforts, thus saving more lives and reducing 
the quake's impact on Americans, Nepalese, and others.
    The first responsibility of every U.S. Ambassador is to 
ensure the safety and security of American citizens, and if 
confirmed, I will continue to prioritize investments that will 
protect our personnel and citizens.
    And as Nepal moves to the reconstruction phase, we will 
work with its government and its neighbors in Asia to help it 
build back better, to provide protection to the most 
vulnerable, to improve resiliency against future disasters, and 
to ensure that investments in Nepal's infrastructure are 
economically sound and environmentally stable. And as you 
pointed out, if confirmed, I will share your focus on donor 
coordination throughout this effort.
    Turning now to the second priority, advancing Nepal's 
economic growth. As we work to help Nepal's economy grow and 
advance, we must look to leverage its location among the 
booming economies of South Asia. With more investments in 
infrastructure, the creation of a business- and investment-
friendly environment, and a more integrated regional market, 
Nepal's entrepreneurs could harness the region's economic 
potential and create tremendous prosperity for their nation. 
Nepal's recent eligibility for a Millennium Challenge 
Corporation--MCC-- compact should help it develop some of that 
economic potential. If confirmed, I will actively look for 
opportunities to improve the business environment and support 
American investment in Nepal.
    I would lastly like to discuss our priority of 
strengthening Nepal's democracy. In 2006, the country emerged 
from a decade of civil conflict with a commitment to creating a 
constitution that would seal a lasting peace. The American 
people can be proud of the role they have played in Nepal's 
transition from violence to peaceful politics. That process is 
still underway. And there has been some significant progress 
lately. Nepal became eligible for an MCC compact because of its 
democratic progress. But much remains to be done, and our 
Government will help Nepal where we can to advance its 
constitutional process and cement a hard-won peace.
    Maintaining that peace will require a firm commitment to 
human rights, and if I am confirmed, the promotion and 
protection of human rights will remain a central priority for 
Mission Kathmandu. This particularly includes protections for 
Tibetan refugees, for women, for disadvantaged populations, and 
for those vulnerable to trafficking.
    Mr. Chairman, I am aware of the many challenges we will 
face in these efforts, from maintaining good coordination with 
Nepal's Government and our international partners, to ensuring 
our resources are being spent effectively.
    My career in the Foreign Service has been dedicated to the 
efficient management of resources, whether for our missions in 
Kabul, Dhaka, Belgium, or here in Washington at the Foreign 
Service Institute or in the Bureau of South and Central Asian 
Affairs. My experience, it would seem, is very timely for this 
posting.
    With the support of Congress, our Government is preparing 
for a large recovery and reconstruction effort in Nepal, and if 
confirmed, I hope to draw on my management experience and 
expertise to help ensure the people of Nepal get the best 
assistance we can give and that the U.S. taxpayers get the 
biggest bang for their buck.
    As that assistance effort progresses, I would, if 
confirmed, look forward to working closely with this committee 
and others in Congress to ensure our work reflects our shared 
priorities.
    Thank you again for the opportunity, and I look forward to 
your questions.
    [The prepared statement of Ms. Teplitz follows:]

                Prepared Statement of Alaina B. Teplitz

    Mr. Chairman, Ranking Member, members of the committee, it is an 
honor to appear before you today as the President's nominee for U.S. 
Ambassador to Nepal.
    I would like to recognize some of my family who are with me today 
and without whom I would not be at this table before you: my sons Max 
and Miles Mellott.
    Mr. Chairman, right now when people think of Nepal, they invariably 
think of the horrific earthquake of this past April, and the tremendous 
damage it wrought. That tragedy has brought together the people of 
Nepal, the country's neighbors, and the international community to help 
the victims recover and the country rebuild.
    And while much has changed in Nepal since the earthquake, our 
overall priorities for the country remain the same: to strengthen its 
democracy, advance its economic growth, and improve its resiliency. If 
confirmed, I will work to advance these goals and build on the 
achievements of my predecessors and our 60 years of positive engagement 
with Nepal.
    I will speak first about the last objective, improved resiliency, 
and then discuss the other two priorities. At the top, I would like to 
extend the Department's profound gratitude to Congress for its support 
for seismically safe housing for U.S. Embassy personnel in Kathmandu. 
It saved the lives of our mission personnel and enabled them to 
immediately assist with rescue and relief efforts, thus saving more 
lives and reducing the quake's impact on Americans, Nepalese, and 
others.
    The first responsibility of every U.S. Ambassador is to ensure the 
safety and security of American citizens, and, if confirmed, I will 
continue to prioritize investments that will protect our personnel and 
citizens in Nepal.
    And as Nepal moves to the reconstruction phase, we will work with 
its government and its neighbors in Asia to help it to ``build back 
better''--to provide protection to the most vulnerable, to improve 
resiliency against future disasters, and to ensure that investments in 
Nepal's infrastructure are economically sound and environmentally 
sustainable.
    I will now turn to the second priority, advancing Nepal's economic 
growth. As we work to help Nepal's economy grow and advance, we must 
look to leverage its location among the booming economies of South 
Asia. With more investments in infrastructure, the creation of a 
business- and investment-friendly environment, and a more integrated 
regional market, Nepal's entrepreneurs could harness the region's 
economic potential and create tremendous prosperity for their nation. 
Nepal's recent eligibility for a Millennium Challenge Corporation 
Compact should help it develop some of that economic potential. If 
confirmed, I will actively look for opportunities to improve the 
business environment and support American investment in Nepal.
    I would lastly like to discuss our priority of strengthening 
Nepal's democracy. In 2006, the country emerged from a decade of civil 
conflict with a commitment to creating a constitution that would seal a 
lasting peace. The American people can be proud of the role they have 
played in Nepal's transition from violence to peaceful politics. That 
process is still underway, and there has been some significant progress 
lately--Nepal became eligible for an MCC Compact because of its 
democratic progress. But much remains to be done, and our government 
will help Nepal where we can to advance its constitutional process and 
cement a hard-won peace.
    Maintaining that peace will require a firm commitment to human 
rights, and, if I am confirmed, the promotion and protection of human 
rights will remain a central priority for Mission Kathmandu. This 
especially includes protections for Tibetan refugees, for women, for 
disadvantaged populations, and for those vulnerable to trafficking.
    Mr. Chairman, I am aware of the many challenges we will face in 
these efforts, from maintaining good coordination with Nepal's 
Government and our international partners, to ensuring our resources 
are being spent effectively.
    My career in the Foreign Service has been dedicated to the 
efficient management of resources, whether for our missions in Kabul, 
Dhaka, or Belgium, here in Washington at the Foreign Service Institute 
or in the Bureau of South and Central Asian Affairs.
    With the support of Congress, our government is preparing for a 
large recovery and reconstruction effort in Nepal, and, if confirmed, I 
hope to draw on my management experience and expertise to help ensure 
the people of Nepal get the best assistance we can give, and that the 
U.S. taxpayers get the biggest bang for their buck.
    As that assistance effort progresses, I would, if confirmed, look 
forward to working closely with this committee and others in Congress 
to ensure our work reflects our shared priorities.
    Thank you and I look forward to your questions.

    Senator Risch. Thank you very much.
    Ms. Gwaltney?

         STATEMENT OF SHEILA GWALTNEY, NOMINATED TO BE 
               AMBASSADOR TO THE KYRGYZ REPUBLIC

    Ms. Gwaltney. Thank you, Mr. Chairman, Ranking Member 
Murphy.
    It is a great honor to appear before you today as President 
Obama's nominee to serve as the United States Ambassador to the 
Kyrgyz Republic. I am deeply grateful for the trust and 
confidence the President and Secretary Kerry have shown in me 
with this nomination. If confirmed, I look forward to working 
closely with the members of this committee and their staff to 
promote and protect U.S. interests in the Kyrgyz Republic.
    I have had the privilege of serving our country for 31 
years as a Foreign Service officer. I have served as Deputy 
Chief of Mission in the Kyrgyz Republic, Ukraine, and Russia 
and have worked on issues related to this region for most of my 
career. I can think of no higher honor than to return to 
represent the American people as Ambassador of the United 
States to the Kyrgyz Republic, a country I know and respect for 
its rich culture, natural beauty, and warm and hospitable 
people. I deeply appreciate the love and support of my family 
and friends throughout these years.
    The principles that have guided U.S. policy toward the 
Kyrgyz Republic remain as relevant today as they were when the 
country attained independence 23 years ago. Our long-term focus 
has always been to support and respect its sovereignty, 
territorial integrity, and independence. Our strategic goals 
are to facilitate and strengthen the Kyrgyz Republic's 
stability, prosperity, and democracy.
    The Kyrgyz Republic is Central Asia's leader in democratic 
development. In 2011, following the election of President 
Atambayev, the Kyrgyz Republic accomplished the first 
democratic transfer of Presidential in Central Asia. The Kyrgyz 
Republic has an independent Parliament and a vibrant and active 
civil society, with thousands of nongovernmental organizations 
working in a wide variety of fields. If confirmed, I would work 
with the government and people of the Kyrgyz Republic to 
strengthen the country's democratic institutions, support the 
continued growth of civil society, and promote respect for 
human rights.
    Our security cooperation with the Kyrgyz Republic is 
focused on the common goals of countering terrorism, improving 
border security, and stemming the flow of illegal narcotics. 
The United States and the Kyrgyz Republic need to work together 
to fight human trafficking and other transnational threats. If 
confirmed, I would work to strengthen our existing partnership 
and continue our joint efforts to address regional and global 
security challenges.
    Expanding markets and opportunities for American business 
is a top priority worldwide. As Secretary Kerry says, ``Foreign 
policy is economic policy.'' If confirmed, I would work with 
the Kyrgyz Republic to bolster private sector-driven economic 
growth, including the promotion of American economic and 
business interests. The Kyrgyz Republic has been a regional 
leader in pursuing market reform and our two nations can work 
together to expand prosperity for both our countries.
    People-to-people contacts remain the bedrock of our 
diplomatic efforts. If confirmed, I look forward to engaging 
people throughout the Kyrgyz Republic and strengthening ties 
between the American and the Kyrgyz people. Public diplomacy 
efforts promote a positive understanding of the United States 
and help build deep and lasting ties between our countries.
    If confirmed, it would be my honor to ensure that our 
mission continues to provide U.S. citizens resident in or 
visiting the Kyrgyz Republic the highest quality service and 
utmost protection.
    Mr. Chairman, one of the great privileges of my career has 
been the opportunity to help lead teams of Americans serving at 
our embassies overseas that are dedicated to the advancement of 
U.S. interests. If confirmed, I would do my best to ensure the 
safety, security, and well-being of my colleagues and their 
family members who serve at our Embassy. I would maintain the 
highest standards of ethical conduct and moral values for our 
mission, including ensuring that the principles of 
nondiscrimination and respect for diversity are respected by 
all in our mission.
    If confirmed, I would always be available to this 
committee, its members, and staff, to discuss and work together 
in pursuit of U.S. national interests in the Kyrgyz Republic.
    Mr. Chairman, I thank you for this opportunity to appear 
before you and the other members of the subcommittee and look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Gwaltney follows:]

                 Prepared Statement of Sheila Gwaltney

    Mr. Chairman, Ranking Member, and members of the committee, it is a 
great honor to appear before you today as President Obama's nominee to 
serve as the United States Ambassador to the Kyrgyz Republic. I am 
deeply grateful for the trust and confidence the President and 
Secretary Kerry have shown in me with this nomination. If confirmed, I 
look forward to working closely with the members of this committee and 
their staff to promote and protect U.S. interests in the Kyrgyz 
Republic.
    I have had the privilege of serving our country for 31 years as a 
Foreign Service officer. I have served as Deputy Chief of Mission in 
the Kyrgyz Republic, Ukraine and Russia and have worked on issues 
related to this region for most of my career. I can think of no higher 
honor than to return to represent the American people as Ambassador of 
the United States to the Kyrgyz Republic, a country I know and respect 
for its rich culture, natural beauty, and warm and hospitable people. I 
deeply appreciate the love and support of my family and friends 
throughout these years.
    The principles that have guided U.S. policy toward the Kyrgyz 
Republic remain as relevant today as they were when that country 
attained independence 23 years ago. Our long-term focus has always been 
to support and respect its sovereignty, territorial integrity, and 
independence. Our strategic goals are to facilitate and strengthen the 
Kyrgyz Republic's stability, prosperity, and democracy.
    The Kyrgyz Republic is Central Asia's leader in democratic 
development. In 2011, following the election of President Atambayev, 
the Kyrgyz Republic accomplished the first democratic transfer of 
Presidential power in Central Asia. The Kyrgyz Republic has an 
independent Parliament and a vibrant and active civil society, with 
thousands of nongovernmental organizations working in a wide variety of 
fields. If confirmed, I would work with the government and people of 
the Kyrgyz Republic to strengthen the country's democratic 
institutions, support the continued growth of civil society, and 
promote respect for human rights.
    Our security cooperation with the Kyrgyz Republic is focused on the 
common goals of countering terrorism, improving border security, and 
stemming the flow of illegal narcotics. The United States and the 
Kyrgyz Republic need to work together to fight human trafficking and 
other transnational threats.If confirmed, I would work to strengthen 
our existing partnership and continue our joint efforts to address 
regional and global security challenges.
    Expanding markets and opportunities for American business is a top 
priority worldwide. As Secretary Kerry says, ``Foreign policy is 
economic policy.'' If confirmed, I would work with the Kyrgyz Republic 
to bolster private-sector-driven economic growth, including through the 
promotion of American economic and business interests. The Kyrgyz 
Republic has been a regional leader in pursuing market reforms and our 
two nations can work together to expand prosperity for both our 
countries.
    People-to-people contacts remain the bedrock of our diplomatic 
efforts. If confirmed, I look forward to engaging people throughout the 
Kyrgyz Republic and strengthening ties between the American and Kyrgyz 
people. Public diplomacy efforts promote a positive understanding of 
the United States and help build deep and lasting ties between our 
countries.
    If confirmed, it would be my honor to ensure that our mission 
continues to provide U.S. citizens residing in or visiting the Kyrgyz 
Republic the highest quality services and utmost protection in times of 
need.
    Mr. Chairman, one of the great privileges of my career has been the 
opportunity to help lead teams of Americans serving at our embassies 
overseas that are dedicated to the advancement of U.S. interests. If 
confirmed, I would do my best to ensure the safety, security, and well-
being of my colleagues and their family members who serve at our 
Embassy. I would maintain the highest standards of ethical conduct and 
moral values for our mission, including ensuring that the principles of 
nondiscrimination and respect for diversity are respected by all in our 
mission.
    If confirmed, I would always be available to this committee, its 
members and staff, to discuss and work together in pursuit of U.S. 
national interests in the Kyrgyz Republic.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the subcommittee and look forward to your 
questions.

    Senator Risch. Thank you very much.
    We are now going to have a series of questions. I am sorry. 
I did not mean to pass you up, Mr. Keshap. Your turn. I 
apologize.

  STATEMENT OF ATUL KESHAP, NOMINATED TO BE AMBASSADOR TO THE 
DEMOCRATIC SOCIALIST REPUBLIC OF SRI LANKA AND TO THE REPUBLIC 
                        OF THE MALDIVES

    Mr. Keshap. Thank you, Mr. Chairman, Ranking Member Murphy, 
Senator Shaheen.
    It is, indeed, an honor to appear before you today as the 
President's nominee to serve as U.S. Ambassador to Sri Lanka 
and to the Maldives. I am grateful to President Obama for his 
trust and confidence in nominating me and to Secretary Kerry 
and my State Department colleagues, particularly Assistant 
Secretary Nisha Biswal, for their support.
    Permit me to begin, Mr. Chair, by thanking my wife, Karen 
Young Keshap, who is also a Foreign Service officer, for her 
love and support throughout the two decades we have served our 
country and for raising our four wonderful children, Carolyn, 
Emily, James, and Charlotte, who are here today.
    I am honored to be here as well with my respected mother, 
Zoe Antoinette Calvert, who served in the U.S. Foreign Service 
in the 1950s and 1960s in our Embassies in India and the United 
Kingdom. I also pay tribute to my late father, Dr. Keshap 
Chander Sen, an immigrant to this country from India, who 
served the United Nations as a development economist.
    Mr. Chairman, due to my father's U.N. service, my early 
years were spent at schools overseas, where the children of 
American diplomats were my earliest friends. My parents' 
service and my upbringing instilled in me a firm dedication and 
commitment to American values and led me to a career in the 
Foreign Service.
    Mr. Chairman, if confirmed, my top priorities will be to 
ensure the safety and security of American citizens and to 
advance the interests and values of the United States and the 
American people.
    In Sri Lanka, our primary interest is to help the people of 
that island succeed as a prosperous, unified, reconciled, 
peaceful, and democratic nation.
    At the beginning of this year, the people of South Asia's 
oldest democracy courageously chose a new path of hope and 
renewal. Since January, Sri Lanka has made progress on 
challenging issues from fighting corruption and media 
censorship to beginning the long process of healing after 
decades of war.
    We want to help the Sri Lankan people strengthen democracy, 
civil society, and human rights, including media freedom and 
freedom of religion. We want to help build a lasting peace and 
fellowship among Sri Lanka's ethnic and religious communities, 
including credible justice, accountability, and reconciliation 
that can facilitate closure for those who suffered and lost 
loved ones during the war. It is important to get this right, 
and the U.N. and the international community can lend useful 
insight to the efforts of the Sri Lankan people.
    Economically, the United States is Sri Lanka's largest 
export market. While our trade volume is currently relatively 
low, I believe there is great potential to expand our 
partnership.
    In the security realm, our de-mining efforts have helped 
farmers return to once war-ravaged land. There is also room for 
closer cooperation on disaster response and maritime security. 
Sri Lanka is a regional leader in the fight against cybercrime, 
a contributor to U.N. peacekeeping operations, and is focused 
on disrupting drug trafficking and fighting maritime piracy. As 
we look to advance our interests across the Indo-Pacific, Sri 
Lanka can be a critical partner.
    I will now turn to the Maldives where a young and dynamic 
populace is on the front lines of climate change. This island 
nation also faces challenges with youth unemployment, rising 
extremism, and social unrest. We are worried, however, about 
the current state of rule of law, due process, and human 
rights. All citizens should be allowed to exercise their human 
rights and fundamental freedoms.
    We must remain engaged, however, on several important 
mutual interests, including countering violent extremism, 
reducing the impact of climate change, and as with Sri Lanka, 
ensuring security in the Indian Ocean. We want a better 
relationship with Maldives so that we can deepen that 
cooperation. And we want to help it return to the democratic 
path on which it courageously embarked a few years ago and look 
forward to strengthening our relationship when that happens.
    Mr. Chairman, Ranking Member Murphy, Senator Shaheen, the 
democratic progress, economic growth, and security of Sri Lanka 
and Maldives affect not just their own countries, but the 
broader Indo-Pacific region. If confirmed, I will consult 
closely with this committee and others in Congress to advance 
U.S. values and interests.
    Thank you very much for your consideration of my 
nomination. I look forward to your questions.
    [The prepared statement of Mr. Keshap follows:]

                   Prepared Statement of Atul Keshap

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as the President's nominee to serve as U.S. Ambassador 
to Sri Lanka and to Maldives. I am grateful to President Obama for his 
trust and confidence in nominating me, and to Secretary Kerry and my 
State Department colleagues, particularly Assistant Secretary Nisha 
Biswal, for their support.
    Permit me to begin by thanking my wife, Karen Young Keshap, also a 
Foreign Service officer, for her love and support throughout the two 
decades we have served our country, and for raising our four wonderful 
children. I am honored to be here with my respected Mother, Zoe 
Antoinette Calvert, who served in the United States Foreign Service at 
our Embassies in India and the United Kingdom. I also pay tribute to my 
late father, Dr. Keshap Chander Sen, an immigrant to this country from 
India, who served the United Nations as a development economist.
    Mr. Chairman, due to my father's U.N. service, my early years were 
spent at schools overseas, where the children of American diplomats 
were my earliest friends. My parents' service and my upbringing 
instilled in me a firm dedication and commitment to American values, 
and led me to a career in the Foreign Service.
    Mr. Chairman, if confirmed, my top priorities will be to ensure the 
security and safety of American citizens and to advance the interests 
and values of the United States and the American people.
    In Sri Lanka, our primary interest is to help the people of that 
island succeed as a prosperous, unified, reconciled, peaceful, and 
democratic nation.
    At the beginning of this year, the people of South Asia's oldest 
democracy courageously chose a new path of hope and renewal. Since 
January, Sri Lanka has made progress on challenging issues, from 
fighting corruption and media censorship, to beginning the long process 
of healing after decades of war.
    We want to help the Sri Lankan people strengthen democracy, civil 
society, and human rights, including media freedom and freedom of 
religion. We want to help build a lasting peace and fellowship among 
Sri Lanka's ethnic and religious communities, including credible 
justice, accountability, and reconciliation that can facilitate closure 
for those who suffered and lost loved ones during the war. It is 
important to get this right, and the U.N. and international community 
can lend useful insight to the efforts of the Sri Lankan people.
    Economically, the U.S. is Sri Lanka's largest export market. While 
our trade volume is relatively low, there is great potential to expand 
our partnership.
    In the security realm, our de-mining efforts have helped farmers 
return to once-war-ravaged land. There is also room for closer 
cooperation on disaster response and maritime security in the Indian 
Ocean. Sri Lanka is a regional leader in the fight against cybercrime, 
a contributor to U.N. Peacekeeping Operations, and is focused on 
disrupting drug trafficking and fighting maritime piracy. As we look to 
advance our interests across the Indo-Pacific, Sri Lanka will be a 
critical partner.
    I will now turn to Maldives, where a young and dynamic populace is 
on the front lines of climate change. This island nation also faces 
challenges with youth unemployment, rising extremism, and social 
unrest. We are worried, however, about the current state of rule of 
law, due process, and human rights. All citizens should be allowed to 
exercise their human rights and fundamental freedoms.
    We must remain engaged, however, on several important mutual 
interests, including countering violent extremism, reducing the impact 
of climate change, and, as with Sri Lanka, ensuring security in the 
Indian Ocean. We want a better relationship with Maldives, so that we 
can deepen cooperation. And we want to help it return to the democratic 
path on which it courageously embarked a few years ago, and look 
forward to strengthening our relationship when that happens.
    Mr. Chairman, the democratic progress, economic growth, and 
security of Sri Lanka and Maldives affect not just their own countries, 
but the broader Indo-Pacific region. If confirmed, I will consult 
closely with this committee and others in Congress to advance U.S. 
values and interests.
    Thank you for your consideration of my nomination. I look forward 
to your questions.

    Senator Risch. Thank you very much.
    Now we will go through a round of questions from each of 
us. Since I tried to short you, Mr. Keshap, I will start there.
    Your description of what has happened recently in Sri Lanka 
with the election of the new President certainly reflects, I 
think, all of our hopes and our good wishes for the people of 
that country.
    I hear your description of it. What is happening today? Is 
that movement increasing? Is it decreasing? Has it leveled off? 
Where are we today as far as the movement from the January 
election?
    Mr. Keshap. Thank you, Mr. Chairman.
    I take great heart and confidence in the significant desire 
of the people of Sri Lanka to embark upon a new path in their 
country. The election of January 8 reflected a broad-based 
decision by the people of Sri Lanka to improve relations with 
the international community, to strengthen democracy and human 
rights, to reinforce civil society, and to really put Sri Lanka 
on a path toward a process of reconciliation that can yield a 
unified peaceful country. If confirmed, Mr. Chairman, I would 
work very hard toward helping the people of Sri Lanka to 
achieve that vision. Secretary Kerry was in Sri Lanka on May 2, 
and he spoke very eloquently about the United States desire to 
help the Sri Lankan people with this.
    Obviously, the politics in any democracy are going to be 
robust and at times messy. There is a lot that needs to be 
worked out. There are some significant issues that have stemmed 
from three decades of conflict and post-conflict period. But I 
think that the United States can be a good friend to the 
efforts and the vision of the people of Sri Lanka and really 
contribute to the achievement of that vision. And if confirmed, 
I look forward to adding my energy to that.
    Senator Risch. We appreciate that.
    Regarding the Maldives, you made brief reference to the 
fact that there is this growing extremism in the country. 
Recent media reports indicate that about 200 of the young 
people there are radicals who have left and gone to fight with 
ISIS. For a small country like that, 200 is a pretty 
substantial number, particularly in light of the fact that if 
that is what it is, it is usually underreported. So it is 
probably higher than that.
    What are your thoughts on that?
    Mr. Keshap. Mr. Chairman, it is a matter of concern. And we 
have an ongoing conversation with the Maldives about this issue 
and others.
    From my perspective, I think that what we want to do is try 
to encourage the people of Maldives and the Government of 
Maldives to ensure greater freedoms and democracy for their 
people. That is the key to ensuring stability, to attracting 
quality investment, to ensuring economic growth, to giving 
people opportunity, and hopefully also to countering violent 
extremism. This is an issue that is very much on the radar, and 
I appreciate your perspectives on this as well. And if 
confirmed, I would work very hard with the Government of the 
Maldives and with partners in the United States who work on 
countering violent extremism to address this issue.
    Senator Risch. Thank you very much. Appreciate that.
    Ms. Teplitz, we both made reference in our previous 
comments to the donor coordination. Tell me a little bit about 
your thoughts in a little more detail how you plan to attack 
that.
    Ms. Teplitz. Thank you, Senator.
    I think the donor coordination issue is actually one of the 
most critical for the success of our programs and assistance to 
the Nepalese people in this recovery phase. My colleague, 
Ambassador Bodde, has been leading the donor coordination 
effort in Kathmandu, and if confirmed, that is something that I 
intend to do as well. And I think it is essential for the 
United States to be in front of that effort, both with 
bilateral donors and multilateral donors, to ensure that 
assistance is well targeted, not duplicative, and well aligned 
with the needs of the people of Nepal.
    Senator Risch. Have you found that the people of Nepal are 
open to the U.S. assistance in that regard as far as donor 
coordination is concerned?
    Ms. Teplitz. Sir, my understanding through consultations is 
that we have a very excellent relationship with the government, 
with other actors, civil society, nongovernmental 
organizations. We have had a very productive relationship 
there, and I see no reason why that would change and look 
forward, in fact, if confirmed, to engaging in a dialogue with 
an array of people to best serve the people of Nepal.
    Senator Risch. Thank you. Appreciate that.
    Ms. Gwaltney, the country you are going to is an 
interesting country. And of course, they have the tremendous 
influence of Russia because of the years that they spent there 
under their thumb.
    Tell me a little bit. The fact that we have withdrawn from 
the Manas Air Base and the fact that the Chinese are attempting 
to increase their influence there--what are your thoughts on 
our prospects for hanging onto our ability to exert hopefully 
some U.S. influence there?
    Ms. Gwaltney. Thank you, Mr. Chairman.
    And I agree with your assessment that the Kyrgyz Republic 
is located at the intersection of many challenges.
    First, I would like to state that we are grateful to the 
Kyrgyz people for the Manas transit center and for the support 
that they provided to the ISAF forces in Afghanistan. It was 
never intended to be a permanent facility, and we cooperated 
very closely with the Kyrgyz Government for an orderly 
transition to that facility.
    More broadly, Senator, to your question about regional 
influence of Russia and China, for the most part Chinese 
influence is economic. China is Kyrgyzstan's largest trading 
partner, and it has made clear that it has an interest in 
expanding trade and expanding linkages throughout the region. 
There may be some complementarities between the Chinese view 
and our view on the importance of increasing economic linkages 
among the countries of Central Asia and between the countries 
of Central Asia and other regions.
    With regard to Russia, it is true that the Kyrgyz Republic 
and Russia have a shared history. They have a number of 
economic linkages. But as recent as the April bilateral 
consultations that we had with the Kyrgyz Government here in 
Washington, the Kyrgyz made clear to us their interest in 
having a strong and productive relationship with us. We think 
it is very important that Kyrgyzstan have the space to make its 
own decisions about its political autonomy, about its economic 
linkages, about the future of the country. We do not think that 
it is appropriate for any country to impose a zero sum approach 
on the Kyrgyz. We think the Kyrgyz should have the right to 
make decisions for themselves. And if confirmed, Senator, I 
intend to work very hard to deepen and expand our cooperation 
with the Kyrgyz Republic.
    Senator Risch. Thank you.
    Finally, Mr. Hale, tell me a little bit about the 
relationship between the Special Rep for Afghanistan and 
Pakistan and the Assistant for South and Central Asia and 
yourself. How do the three of you work as far as that country 
is concerned? We know the complexity of it, and as I said, 
those of us who met with the Members of Parliament here in 
April were impressed with their stated purposes. But tell me 
how the three of you work in that regard?
    Ambassador Hale. Well, thank you, Mr. Chairman.
    I have, obviously, just begun my consultations. I am still 
serving at the embassy in Beirut. But if confirmed, I look 
forward to a very close working relationship with both the 
Assistant Secretary for South and Central Asia and the Special 
Representative.
    I myself served as a special envoy. So I can stress from 
firsthand experience the importance that there be very much a 
whole-of-government approach to any problem that a special 
envoy is focused on. A special envoy representative brings a 
higher level of focus and energy to a particular issue, but 
success very much depends upon a cooperative relationship with 
all of the entities in the government, including the Assistant 
Secretary, for watching the bilateral relationships and the 
geopolitical and strategic picture in the region.
    As Ambassador to Pakistan, if confirmed, I would report to 
the Special Representative and to the Secretary of State 
ultimately, but I expect very close integration with the 
Bureau.
    Senator Risch. Thank you very much. I appreciate that.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Welcome 
to all of you. I am sorry that I missed the very beginning of 
your opening remarks.
    Ambassador Hale, thank you for your service after very 
difficult and tumultuous service in Beirut. I am glad that you 
are going to get a few years off in Islamabad. I do not know 
how you managed that, but we are grateful that you accepted the 
appointment.
    We are having a debate here about what constitutes our 
national security budget. Right now, there is a proposal that 
the Senate and the House exceed the budget caps for the Defense 
Department, but that we do not exceed the caps for other 
spending that many of us would consider to be instrumental to 
national security. On that list would be our foreign assistance 
programs.
    One of the most important jobs you are going to have is to 
oversee the implementation of the Kerry-Lugar-Berman act. Can 
you give us your understanding as to the update of its 
implementation? I know a little bit of a rocky start in terms 
of getting the money to the right partners on the ground. But 
how important is that program, is that funding stream to our 
ability to influence events on the ground inside Pakistan 
today?
    Ambassador Hale. Well, I think it has proven to be 
critically important. Obviously, our primary goal is to enhance 
Pakistan's cooperation with us in the counterterrorism field. 
But I think we have all learned over time that simply relying 
and focusing on a traditional military-to-military assistance 
approach is not going to get the full results that we require. 
Pakistan needs to have stability. It needs to have a government 
that is addressing the needs of its people. It needs to ensure 
that the citizenry can turn to the traditional leaders for 
energy, for education, for all of the things that countries 
expect to receive from their state. This is a challenge in 
Pakistan. It is a poor country. It is an emerging democracy.
    But the resources that the Kerry-Lugar-Berman process has 
brought to Pakistan I think have shown results already. They 
are focused in several key areas. I mentioned energy, but also 
education, economic growth, health. And a very important 
category is stabilization so that when Pakistan is clearing out 
certain areas, like they are today in North Waziristan, of 
insurgents, that there is an ability and resources to rush in 
in that golden hour with the kind of services that citizens 
expect.
    Also, I think there is an important point to bear in mind. 
This relationship serves best our two sides when it is 
predictable, when the Pakistanis and the Americans who are 
looking at this relationship can see for years out what the 
expectations are, what the deliveries will be. And I think for 
Pakistan to sustain what we feel they must for their interests 
and ours in terms of security cooperation, it is critical that 
we be helping them in these developmental fields as well.
    Senator Murphy. We watched video and reports yesterday of 
Taliban attacks on the Parliament building in Kabul. Very 
disturbing to watch. There are other advancements that the 
Taliban has made, taking control of several towns in the north 
and in the west. And yet, there are also reports of the 
facilitation of a dialogue between the Taliban and the Afghan 
Government.
    So let me ask a specific question. What is your 
understanding today of the disposition of ISI with respect to 
its coordination with some of these elements within 
Afghanistan? I know we have made a lot of progress there and 
there were reports of commitments made in Secretary Kerry's 
last bilateral meetings with respect to the Haqqani network I 
know separate and aside from some of the issues surrounding the 
Taliban. But as the situation seems to get more unstable inside 
Afghanistan, are the Pakistanis able to help us try to address 
some of those security concerns inside Afghanistan?
    Ambassador Hale. Well, Senator, this is a crucial area. It 
will be one that I will be very much focused on if I am 
confirmed.
    I do think that there has been progress. We have seen, I 
think, a change in direction by the Pakistani leadership 
itself. There are opportunities posed by the election of 
President Ghani in Afghanistan, the emergence of new leaders in 
Pakistan. And they are talking and beginning to coordinate a 
strategy.
    In May of this year, we saw that Prime Minister Sharif and 
President Ghani met, and they pledged joint efforts to crack 
down on the very groups that you have mentioned based in each 
state's territory. And they are talking about coordinate 
operations that will be undertaken to basically eliminate these 
safe havens along the border area.
    Obviously, words are one thing. What we need to see beyond 
these commitments, important as they are, is actual action on 
the ground and effective steps to be taken. And I think that 
that is something we will be, obviously, pressing for, in 
addition to targeting the militant groups, pushing them and 
pressurizing them into the political reconciliation process 
that ultimately is the best means for stabilizing Afghanistan.
    Senator Murphy. To Ms. Teplitz and Mr. Keshap, the same 
question. You are going to be in countries that have to balance 
themselves between two great powers, between China and India. 
Could you just speak to what the U.S. interests are with 
respect to which way those two countries lean or attack? Why 
would we care about the direction of either of those countries 
is having in terms of trying to manage their alliances with 
those two countries? Mr. Keshap first and then Ms. Teplitz.
    Mr. Keshap. Sure. Thank you, Senator Murphy.
    I think the overarching U.S. goal is to try to help the Sri 
Lankan people strengthen their democracy to the greatest extent 
possible. By doing that and by fostering the real culture of 
accountability and meaningful reconciliation for the past, it 
can lay the foundations for a really prosperous and unified 
democracy going forward that can be a real platform for 
stability not only in its region, in the Indian Ocean region, 
but across the Indo-Pacific.
    I do believe that America's most enduring partnerships are 
with democracies, and so if confirmed, I would very much want 
to direct my energies and efforts and those of my team toward 
intensifying the U.S. bilateral relationship in a way that is 
helpful and relevant to the people----
    Senator Murphy. So you are saying let us just focus on the 
quality of democracy, or is that a way of saying we should be 
agnostic as to the question of their balance of allegiance 
between China and India?
    Mr. Keshap. Senator, I think the issue here is to make sure 
that Sri Lanka can be a robust and contributing partner to 
security in the Indian Ocean. And in that regard, they 
obviously will need to make their own choices, but I do feel 
that the United States should always be the preferred partner 
in advancing democratic values, rules-based order, transparent 
norms, and peaceful settlement of disputes. And I do think we 
can work in concert with democracies in advancing those 
strategic goals.
    Senator Murphy. Ms. Teplitz.
    Ms. Teplitz. Thank you, Senator.
    And while I echo many of the sentiments of my colleague 
here about the situation with Nepal, I think the U.S. interests 
are for a prosperous and stable South Asia. Nepal is a part of 
and a partner in achieving that. It does have to balance its 
two neighbors, China and India, as you have pointed out. And I 
think our role in that is ensuring at this stage that there are 
positive and coordinated contributions to the earthquake 
recovery effort. This actually gives us an opportunity to work 
very closely not only with the Government of Nepal, with whom 
we have a very strong relationship, but also with these 
neighbors to have a very productive outcome and what happens on 
the ground in Kathmandu is going to be crucial in contributing 
toward a positive outcome. And if confirmed, I definitely plan 
to make this careful balance a priority.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Risch. Thank you. I have a hard stop and I have to 
go to another meeting. But I wanted to give Senator Shaheen a 
chance to ask questions and also, Senator Murphy, if you have 
any more questions. If not, if you would close the meeting for 
me when we are done.
    The record will remain open until close of business on 
Thursday for questions. So we will put that into the record.
    With that, Senator Murphy, I am going to turn this over to 
you and Senator Shaheen for questions.
    Senator Shaheen. Thank you very much, Mr. Chairman.
    And thank you all for your willingness to continue to 
serve. For many of you, you have served for many years, and we 
very much appreciate that.
    I want to pick up, Ambassador Hale, where Senator Murphy 
left off in terms of the renewed efforts to improve 
negotiations with Afghanistan and Pakistan and the possibility 
that that might help with moving the dialogue with the Taliban 
and hopefully moving towards peace. Can you talk a little bit 
about what your assessment is of whether they are making 
progress and whether you see the potential and what the United 
States can do to help with that effort?
    Ambassador Hale. I think it is at an early stage, frankly, 
to make sweeping judgments, but it does appear that they are on 
the right path. President Ghani's commitment is very clear. He 
is staking a lot on this. It is going to require cooperation 
from Pakistan, and I think, again, Prime Minister Sharif has 
made the right commitments, said the right words. It has been 
followed up by travel by General Rahil, the military chief of 
staff, and by intelligence officers as well.
    There has to be actually, as I said earlier, actions that 
follow up on these commitments, and so we will be judging that. 
Will there be actions against the safe havens? Will they be 
cutting off the terrorist financing links? Will they be really 
putting their influence behind the effort to do what you just 
said, to encourage meaningful participation in the Afghan-led 
reconciliation process?
    We have talked about this for a while. I think that there 
is a new opportunity here and a new atmosphere because these 
are new leaders who are doing this. And I think that the fact 
that Pakistan itself has suffered so greatly from terrorist 
attacks, most recently the tragedy in Peshawar, also the 
Karachi airport attack, that may have contributed to the shift 
and understanding that Pakistan's national security interests 
really are at stake here and that the stability and the 
security and building a democracy in Afghanistan is every bit 
as important to the people of Pakistan as it is to those in 
Afghanistan.
    All I can say, Senator, is that if confirmed, my job will 
be primarily to focus on this endeavor, given the stakes for 
the United States here, and I will put my full effort behind 
that.
    Senator Shaheen. And do you see, as Prime Minister Sharif 
has taken over, any progress on the effort to be more inclusive 
in Pakistan to reduce what we would call hate crimes in the 
United States against people who are against non-Muslims?
    Ambassador Hale. I believe I will have to get out there 
myself, if I am confirmed, and make a judgment and come back to 
you and your staff. But there is a long way to go. So I hope 
democracy will be more inclined to be respectful of minorities 
and of its people. I do not know for sure, but you look at the 
record, and there is, as I said, a tremendous task ahead. 
Religious minorities, women, other vulnerable segments of that 
society definitely need protection, and the United States needs 
to stand up, speak loudly about that, but also work behind the 
scenes with quiet diplomacy so that Pakistan's elected leaders 
understand what is at stake here and also to use the tools in 
our assistance program, which Congress has been so generous in 
providing so that NGOs and other groups are able to provide all 
kinds of programs, can help not just with protections but to 
advance recognition of the importance of the rights of 
minorities.
    Senator Shaheen. I visited in Pakistan several years ago 
right after they had gone into the Swat Valley and were 
responding to terrorist attacks there and was very impressed 
with the effort of the government and the military to take on--
really to fight against their own citizens to address the 
terrorism threat. But recent reports have suggested that those 
efforts have been less successful than I certainly would have 
hoped based on that effort several years ago. And I wonder if 
you have any reports on the commitment there and the extent to 
which the military has been able to take on some of these 
terrorist elements.
    Ambassador Hale. Well, again, I think it is important to 
remember the context, which is that Pakistanis themselves are 
suffering greatly from the attacks and threats posed by these 
groups. That is point one.
    Point two. I think any rational analyst of Pakistan and the 
situation there would recognize that tolerating one group of 
extremists or insurgents on your soil while just targeting 
another group is not going to create a stable environment at 
all. So that is, I think, a very important lesson for any 
leader in that region to understand.
    Third, I think it is important to remember where the 
successes have been. Pakistan's military leadership and its 
soldiers have done admirable work in countering the al-Qaeda 
threat and doing maximum effort to eliminate that. Always gaps, 
but there have been arrests. There have been some substantial 
activities. Countering IED's is another area where they export 
the manufacture and the export of these IED's into Afghanistan. 
Wrapping that up, again not completed, but substantial efforts 
have been invested in that.
    Working on these areas of insurgents and militants is the 
next big project, and obviously, there has been progress. I do 
not have the firsthand experience that you have, Senator, in 
observing this. I am concerned by your observation and I will 
want to look into that myself when I get out there. But right 
now, the campaign in North Waziristan has produced results. It 
has cleared out substantial areas. It is soaking up safe 
havens. It is critically important that other groups not come 
in now and exploit those areas and that the state remain 
present not just with the constabulary in the army but, as I 
said earlier in response to a question, that the whole of 
government is rushing in there and providing the services and 
the economy that any Pakistani should expect of their 
government.
    Thank you.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Murphy [presiding]. Thank you, Senator.
    I just have two more questions.
    Ambassador Hale, there are different reports about the 
effectiveness of ISIS in establishing a foothold within 
Pakistan. Many suggest that there is a lot of factors that are 
going to inhibit their ability to grow more than a handful of 
activists there.
    What is your understanding heading into Islamabad as to how 
much time you might be spending on this question of ISIS 
presence inside Pakistan?
    Ambassador Hale. Well, again, I will need to get there, if 
I am confirmed, to judge for myself. But the briefings I have 
had suggest that so far the ISIS threat is relatively small and 
contained. But having served, as I have, so many years in the 
Levant, complacency is the last thing I am taking with me to 
Pakistan on this front. ISIS has shown that it is potent and it 
can exploit areas that are ungoverned quite rapidly, and we all 
know there are ungoverned spaces in Pakistan. So while there 
may be cultural and other factors that have reduced ISIS's 
ability at least initially to make inroads, I think we have to 
be very vigilant about that and make sure that the Pakistani 
leadership knows, as I think those in the Levant do, that 
moderate Muslim leaders themselves are the first targets of 
this phenomenon and therefore have an extra responsibility to 
preempt them.
    Senator Murphy. Ms. Gwaltney, should we care about the 
Kyrgyz Republic's joining the Eurasian Union? Is this an 
economic body that presents any kind of real threat to the 
United States without membership on the western edge of Russia? 
Is this something that you think you are going to be spending 
time on, or should we just let it lie and not worry too much 
about it?
    Ms. Gwaltney. Thank you, Senator, for you question.
    The Kyrgyz Republic is poised to join the Eurasian Economic 
Union in the upcoming weeks. And one thing that we have made 
very clear is, of course, first and foremost, our support for 
free trade, and secondly, equally importantly, is the fact that 
as a member of the WTO--and the Kyrgyz Republic was the first 
former Soviet Republic to join the WTO in 1998--but that in its 
accession to the Eurasian Economic Union, the Kyrgyz Republic 
needs to be mindful and to uphold its obligations under the 
WTO.
    I think it is early days, sir, to be able to calibrate 
exactly what the economic impact of accession to this 
organization will be, but if confirmed, it is certainly 
something that I will pay a great deal of attention to not only 
because of Kyrgyzstan's WTO commitments but because I am 
committed to the promotion of American exports and support for 
American business. And we will want to keep that space open.
    Senator Murphy. Well, thank you to you all. I am tempted to 
ask my staff to do some quick research on what parliamentary 
maneuvers I can use now that I am in charge of the 
subcommittee. [Laughter.]
    But instead, I will just note that the record does stand 
open. So if you do get followup questions from members of the 
subcommittee who are not here, I hope you will turn them around 
quickly.
    And with that, using bottled water, this hearing is now 
adjourned.
    [Whereupon, at 12:15 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Glyn Townsend Davies, nominated to be Ambassador to the 
    Kingdom of Thailand, to Questions from Members of the Committee

                ambassador-designate davies's responses 
                    to questions from senator rubio
    Question. If the Thai junta by the start of 2016 fails to remove 
restrictions on freedom of speech and assembly, and schedule elections, 
what steps do you think are appropriate to increase pressure on General 
Prayuth? Do you think it's appropriate to cancel the military exercises 
known as Cobra Gold? Why not? If Cobra Gold was to continue in 2016, do 
you agree that it should be kept at a scaled-back level, or scaled back 
even further?

    Answer. Following the coup, we suspended, as required by law, $4.7 
million in military assistance funds (FMF, IMET, PKO) until a 
democratically elected civilian government takes office. We have also 
cancelled some high-level engagements, military exercises, and training 
programs with the military and police. We continue to thoroughly review 
all our engagements with Thailand. If confirmed, I will closely monitor 
political developments and continue actively to urge the military 
government to remove restrictions on civil liberties and return 
Thailand to democratic governance as soon as possible. I will also 
encourage the military government to make the political reform process 
as inclusive as possible to reflect the broad diversity of views within 
the country.
    The United States decided to proceed with Cobra Gold 2015 because 
of the importance of the annual, multilateral exercise in fulfilling 
the U.S. commitment to regional stability. Bringing together nearly 30 
nations, Cobra Gold is the largest such exercise in Asia and has for 30 
years been an integral part of the U.S. commitment to strengthen our 
security engagement in the region. Cancelling the exercise would make 
it more challenging to sustain our military's interoperability with 
regional allies and partners.
    Cobra Gold 2015 was significantly refocused and scaled down in 
light of the Thai military's ouster of the civilian government, with an 
increased focus on humanitarian assistance and disaster relief. We have 
decided to proceed with planning for Cobra Gold 2016 due to its 
importance in expanding regional cooperation and capacity building. As 
in 2015, the exercise will be scaled down and focus on building 
regional cooperation on humanitarian assistance and disaster relief.
    If confirmed, I will evaluate the scale and focus of the exercise 
and seek necessary adjustments in light of political developments in 
Thailand.

    Question. Will you continue to use public diplomacy, as the State 
Department has since the May 2014 coup, to raise concerns about 
censorship and arrests of Thai citizens for exercising their rights to 
free speech and assembly?

    Answer. Yes. If confirmed, I will continue to urge Thailand, both 
publicly and privately, to remove undue restrictions on civil 
liberties, including limits on fundamental freedoms of expression and 
peaceful assembly. My priority will be to urge Thailand to institute a 
genuinely inclusive reform process that reflects the broad diversity of 
views within the country. As part of this effort, I will continue to 
use all tools at our disposal, including public diplomacy and 
diplomatic engagement, to encourage Thailand to lift restrictions on 
civil liberties and swiftly return to a democratically elected civilian 
government that respects human rights.

    Question. Thailand was designated a Tier 3 country for trafficking 
in persons in the State Department's 2014 Trafficking in Persons 
Report. What new ideas do you have for motivating the Thai Government 
to get serious about cracking down on human trafficking--not just with 
isolated raids and written action plans, but serious, sustained, and 
comprehensive efforts to clamp down on trafficking networks--not just 
sex trafficking but trafficking of migrant labor and refugees from 
Burma?

    Answer. If confirmed, my arrival as the new Ambassador will provide 
a fresh opportunity for the United States to highlight both publicly 
and privately our principled stance against human trafficking. 
Thailand's Tier 3 ranking in 2014 reflected the shortcomings in the 
Thai Government's efforts to address the country's vast human 
trafficking problem. In the 2014 TIP Report, we outlined a series of 
recommendations for the Thai Government to improve its antitrafficking 
response.
    If confirmed, I will encourage Thailand to conduct thorough 
investigations of reports of trafficking, including in cases with 
alleged government complicity, and to bring trafficking offenders to 
justice. I will also continue to advocate for proactive government 
efforts to identify and protect victims, and support international and 
civil society organizations that play a role in identifying and 
assisting victims and promoting the rights of migrant workers.
    The Department's TIP Office currently provides approximately $1 
million in funding for three projects in Thailand that are focused on 
trafficking prevention, protection for victims, raising awareness, 
promoting access to justice for victims, and increasing investigations 
and prosecutions of traffickers. Additional project funding for FY15 is 
currently under consideration.
    We will continue to provide specific technical assistance requested 
by the Thai Government related to trafficking investigations and 
prosecutions as well as general support for building the capacity of 
their law enforcement and rule of law institutions. We welcome the 
efforts made by Thailand to stand up a Human Trafficking in Persons 
Division in the criminal courts system that will focus exclusively on 
human trafficking cases. We also welcome reports that the Royal Thai 
Police has issued over 100 arrest warrants related to migrant smuggling 
and abuses against migrants--which may include human trafficking, 
including the warrant for a three-star Army official.
    If confirmed, I will continue to encourage Thailand to take robust 
action to combat human trafficking and eliminate forced labor.

    Question. What role do you see for the private sector--for U.S. 
companies and Thai companies--in fighting the use of forced labor in 
Thailand?

    Answer. The private sector has a key role to play in combating the 
use of forced labor in Thailand. A significant proportion of 
trafficking victims in Thailand are found in the seafood industry. For 
several years, the international community has expressed its concern 
over the forced labor of foreign migrants in the Thai fishing and 
onland seafood industries. The United States continues to call on the 
Thai Government to take significantly greater steps to protect foreign 
migrants in the fishing and shrimp industries and to punish those who 
are enslaving foreign workers.
    Thailand is the world's third-largest seafood exporter and its 
products are sold at major retailers around the world. As a result, 
U.S. and Thai retailers have significant economic influence over the 
Thai seafood industry and play a vital role in ensuring that supply 
chains are free from the use of forced labor.
    Recently, several large U.S. retailers have engaged major Thai 
seafood producers to address issues in their supply chain in an effort 
to combat human trafficking in Thailand's seafood sector. If confirmed, 
I will encourage private companies to comprehensively address forced 
labor in their supply chains and help bring together various 
stakeholders to develop concrete action plans to address this important 
issue.

                               __________

   Responses of William A. Heidt, Nominated to be Ambassador to the 
    Kingdom of Cambodia, to Questions from Members of the Committee

                ambassador-designate heidt's responses 
                    to questions from senator rubio
    Question. If you are confirmed, the most important event that is 
going to take place during your tenure is the 2018 elections. Are you 
prepared to be as outspoken as your predecessor, Bill Todd, in publicly 
criticizing human rights abuses and restrictions on freedom of speech 
and assembly, and calling out politically motivated misuses of power 
for what they are? Do you agree that public diplomacy--and outspoken 
defense of human rights principles--is an important and ultimately 
essential diplomatic tool in the Cambodia context?

    Answer. The 2018 elections will certainly be an important event for 
Cambodia and represents an opportunity for it to take another step 
forward toward an enduring and principled democracy. If confirmed, I 
will advocate both publically and privately for the Cambodian 
Government to stage free and fair elections, including a free election 
campaign period in which human rights and the freedoms of speech and 
assembly are respected. I will also urge and offer assistance to the 
government to address the irregularities, including voter registration 
issues, which marked the last election. Public diplomacy is also an 
important tool, and we will use it, along with other programs including 
direct diplomacy with government officials and the opposition, targeted 
assistance aimed at strengthening Cambodia's democratic institutions 
and people-to-people programs that impart American values to 
Cambodians. Ambassador Todd has been a tireless advocate for human 
rights and democracy in Cambodia. If confirmed, I will continue in that 
tradition.

    Question. Do you agree that the 1991 Paris Agreements remain 
binding and that the United States, as a signatory, continues to have 
specific obligations to promote democracy and human rights in Cambodia, 
pursuant to the agreement's terms?

    Answer. The United States, both as a signatory to the 1991 Paris 
Peace Accords and as a matter of principle, places democracy and human 
rights promotion as one of our top foreign policy goals in Cambodia. If 
confirmed, I will continue to support the wide variety of programs that 
help build a stronger civil society, will continue to emphasize the 
importance of democracy and human rights with both the government and 
opposition, and will continue to promote educational and cultural 
exchanges which expose young Cambodians to American values.

    Question. The Cambodian Parliament, in the control of Prime 
Minister Hun Sen, is currently considering a troublingly restrictive 
new law governing nongovernmental organizations (NGOs). If that law 
passes in current form, will you work to ensure that the government 
does not abuse or misuse it to harass or persecute NGOs for their 
legitimate operations, including reporting and advocacy on human rights 
issues?

    Answer. We are very concerned about the draft NGO law. We have 
spoken out publicly about the law on a number of occasions and have 
questioned the need for such a far-reaching law. Our Embassy in Phnom 
Penh continues to lobby the Cambodian Government to pursue full 
consultations with civil society as the draft law is debated in the 
National Assembly. If the law passes in its current form, if confirmed, 
I would closely monitor the treatment of all NGOs, international and 
domestic, to ensure that the new law is not used to suppress their 
rights of freedom of association, assembly, and speech. As appropriate, 
we will also share best practices from the U.S. and other countries on 
regulating the NGO sector in a way that facilitates the empowerment of 
civil society while addressing any concerns the government may have 
about terrorism or coordination between NGOs and the government. Any 
NGO law should have a light touch and require minimal governmental 
oversight so that civil society can flourish and play its essential 
role in a transparent, rights-respecting democracy.

                               __________

  Responses of David Hale, Nominated to be Ambassador to the Islamic 
    Republic of Pakistan, to Questions from Members of the Committee

                 ambassador-designate hale's responses 
                    to questions from senator cardin
    Question. I have ongoing concerns about Lashkar-e-Taiba and the 
threat that it poses to the region. I hope that we will see some 
progress in countering this group and progress in holding its members 
accountable for the 2008 tragedy in Mumbai. How will you specifically 
increase pressure on the Pakistani Government to take action against 
LeT and its counterpart organization Jamaat-ud-Dawa?

    Answer. I share your concerns regarding Lashkar-e-Taiba (LeT) and 
believe it is critical that the Mumbai trial move forward and that the 
Government of Pakistan take steps to dismantle LeT. Pakistan's 
relations with India will continue to be challenged as long as LeT 
continues to retain any operational capacity. I understand that this 
issue has been raised specifically by senior officials in this 
administration, and if confirmed, I absolutely plan to continue our 
efforts to engage the Pakistani Government.

    Question. Several international NGOs have faced challenges in 
legally registering in Pakistan. Over the past week, Save the Children 
has been ordered to leave, only to have that order rescinded. This 
uncertainty has made it very difficult for these organizations to work 
in what is already a challenging environment. This is unacceptable. 
Pakistan needs to understand that undue pressure on these organizations 
and civil society more broadly will have significant implications for 
our bilateral relationship. How will you protect the interests of U.S.-
funded NGOs in Pakistan?

    Answer. The work of international and local NGOs to carry out their 
development objectives is critical to achieving Pakistan's and our own 
goals that we have agreed upon with the Government of Pakistan. We 
respect the Government of Pakistan's need for transparency from INGOs 
involving their activities within the country. We also agree INGOs must 
operate within a relevant legal and regulatory framework. However, if 
confirmed, I will continue to urge the Government of Pakistan to 
establish a transparent and credible process that will allow INGOs, 
including Save the Children, to work in Pakistan legally.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. During my assignments as Ambassador to Jordan and Lebanon, 
I took specific steps to promote democratic institutions, including 
through promoting political reforms and elections in Jordan with U.S. 
Government programming, and by taking active steps to strengthen 
democratic institutions and civil society in both countries.

    Question. What are the most pressing human rights issues in 
Pakistan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Pakistan? What do 
you hope to accomplish through these actions?

    Answer. As noted in our previously published Human Rights Reports, 
the most serious human rights problems in Pakistan remain attacks on 
religious minorities, extrajudicial killings, disappearances, torture, 
poor implementation and enforcement of laws, gender-based violence, 
violence against journalists and media organizations, governmental 
practices and laws which limit freedom of religion (particularly for 
religious minorities), a weak criminal justice system, widespread 
forced and exploitative child labor, and human trafficking. I believe 
that our ongoing rule of law programming in Pakistan has the potential 
to strengthen the capacity of Pakistani police, prosecutors, and 
courts--as well as strengthen their relationships with civil society--
and is one of the most effective tools we have to promote and protect 
basic human rights and counter attacks on all Pakistani citizens, 
including minorities. Our democracy and human rights programming is 
also very important, especially our support to Pakistani elections and 
for improving journalist standards and increasing media safety. If 
confirmed, I plan to advocate for these programs and to engage directly 
with Pakistani officials on issues of rule of law, democracy, and human 
rights.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Pakistan in 
advancing human rights and democracy in general?

    Answer. I will assess the situation on the ground in Pakistan once 
I arrive, but I understand that the security environment is a major 
challenge to our access to many areas of the country. Moreover, I 
understand it often takes time to receive approval for some of our 
programs. If confirmed, I plan to engage directly and consistently with 
the Government of Pakistan to ensure that we can implement important 
rule of law, democracy, and human rights programming.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the U.S. and with local human rights 
NGOs in Pakistan?

    Answer. If confirmed, I look forward to regularly meeting with 
human rights and other nongovernmental organizations in the U.S. and 
with local human rights NGOs in Pakistan.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy as well as steps you would take to accomplish the goal of 
the law, namely, helping the Government of Pakistan end impunity for 
human rights violations by security forces.

    Answer. If confirmed, I will be personally involved in ensuring 
robust Leahy vetting occurs, as I have as Ambassador in Lebanon and 
Jordan. Furthermore, I plan to ensure that the country team, especially 
officers from the Departments of State and Defense, continue their 
active engagement in the Leahy vetting process, ensuring that units 
which have committed gross violations of human rights do not benefit 
from U.S. assistance and also helping the Government of Pakistan 
address and prevent human rights violations. Coordination with our 
colleagues in Washington will also be critical to ensuring the success 
of our vetting process.

                               __________
                 ambassador-designate hale's responses 
                    to questions from senator risch
    Question. A lot of policy decisions regarding Pakistan are 
currently made by the SRAP (Special Representative for Afghanistan and 
Pakistan), but the one issue you will be most responsible for is crisis 
management if there is some incident like the Raymond Davis case or the 
Mumbai attacks. While there are certainly many other scenarios that 
could occur, how would you handle these situations?

    Answer. I will be absolutely focused on ensuring Embassy Islamabad 
and the constituent posts in Pakistan are fully prepared to manage a 
crisis, whether related to policy, a terrorist attack, a natural 
disaster, or other scenarios, as you rightly note are very possible. 
Recognizing that no two situations are identical, I have had 
significant crisis management experience in my career, including during 
my tenure as Ambassador in Jordan and Lebanon. I understand there is 
close coordination between Embassy Islamabad and SRAP, as well as with 
other relevant Department of State offices, including Diplomatic 
Security, the Office of the Under Secretary for Management, and with 
interagency partners, including the National Security Staff and the 
Department of Defense. I will prioritize maintaining these 
relationships as part of a strong, sustained contingency planning 
program. Above all I would use my relationship with senior Pakistani 
officials as needed to manage the situation.
    If confirmed, I will work assiduously to build upon and strengthen 
the critical relationships with the Pakistani leadership that the 
current Ambassador and Country Team have established--and to ensure 
that the U.S. has the broadest possible set of contacts with senior 
Pakistani counterparts that could be drawn upon when needed. Finally, I 
would like to note that as I have stressed throughout my remarks, I 
believe the best contingency planning with host governments comes 
through sustained engagement, and increasing cooperation on areas of 
mutual interest. I believe this is the path our relations with Pakistan 
are currently on, and I look forward to working to further strengthen 
that engagement in support of our national interests.

    Question. China is increasingly active in Pakistan, more than they 
have ever been. What do you believe is their goal in the Pakistan and 
the region? Do you think they will succeed and how would that success 
affect the U.S. relationship with Pakistan?

    Answer. China and Pakistan have long shared close ties. We and 
China share a concern about Pakistan's stability, and wish to see the 
elimination of terrorist safe havens and support networks. We also 
share a desire to see a Pakistan that is economically stable, which 
will require a resolution to Pakistan's long-term energy crisis and an 
expansion in Pakistan's regional economic integration with its 
neighbors, especially India and Afghanistan. The administration 
believes the best approach is to expand engagement with both China and 
Pakistan on all issues, and seek to cooperate in areas of common 
interest. At a basic level, we do not view Pakistan as a theater for 
zero-sum competition between the United States and China. We believe 
China's engagement in Pakistan potentially can contribute to peace and 
stability in Pakistan and the broader region. This would help to 
achieve U.S. national security objectives in Pakistan, Afghanistan, and 
the broader region.

    Question. What success have we seen come from the Strategic 
Dialogue beyond formally banning the Haqqani network from Pakistan?

    Answer. The Strategic Dialogue provides a comprehensive framework 
for our engagement with Pakistan, ensuring that the issues of most 
importance to our two governments are addressed in a significant and 
sustained manner, by senior officials from each side. There have been a 
number of notable successes: a greater focus on nuclear security and 
nonproliferation; progress on countering improvised explosive devices 
(``C-IED''); close cooperation on counterterrorism objectives and 
delivery of the hardware needed to achieve those objectives; increased 
trade, investment opportunities, and reform efforts; improvements in 
the energy sector; and greater access to educational opportunities.
    However, I would note that the most important outcome of the 
Strategic Dialogue, as relaunched by Secretary Kerry in August 2013, is 
that it has put the bilateral relationship on a firmer foundation, 
grounded in our respective interests, and characterized by a more 
regular, forthright exchange of views--often in private. This progress 
is carried forward by our daily engagements in Pakistan, involving a 
robust Country Team representing the full range of U.S. departments and 
agencies.

    Question. Can Pakistan truly grow economically and reduce its 
dependence on Western aid without a rapprochement with India? How do 
you assess the potential?

    Answer. We absolutely believe that greater regional trade is 
important for the stability, prosperity, and security of the region. We 
will continue to encourage India and Pakistan to find ways to increase 
trade and cross-border connections. However, Pakistan has a significant 
number of domestic reforms that are required to grow its economy, 
regardless of its international trade. Many factors, including reform 
and energy sector investments can help Pakistan grow economically. This 
is why we have supported PM Nawaz Sharif's economic agenda, the 
government's engagement with the IMF, and used our assistance funds and 
our Strategic Dialogue to promote reform. As a result Pakistan is in 
better macroeconomic health than when it began the IMF program.

                               __________
                 ambassador-designate hale's responses 
                    to questions from senator rubio
    Question. Pakistan is one of the worst violators of religious 
freedom in the world, in particular due, to the combination of 
government persecution through the blasphemy and anti-Ahmadi laws and 
government inaction by not arresting perpetrators of mob violence or 
cracking down on militant groups. However, the State Department never 
has designated Pakistan as a ``country of particular concern'' for its 
particularly severe violations of religious freedom.

  <diamond> How can this be explained?

    Answer. Human rights and religious freedom are among our highest 
objectives worldwide and in Pakistan. If confirmed, I will plan to 
raise these issues at the highest levels of the Pakistani Government 
and will use all the tools at my disposal to promote progress in these 
areas, recognizing that we also have many other critical foreign policy 
objectives in Pakistan. If I am confirmed, once I am in Pakistan I will 
make my own assessment of what may be effective and will consult 
closely with SRAP, DRL, the Secretary, and others--including Congress--
on any consideration of a CPC designation.

    Question. Sadly, no religious community is immune from violence in 
Pakistan. Recent months have witnessed an attack on two churches in 
Lahore, a brazen attack on the busload of Ismaili Muslims in Karachi, 
ongoing violence against Ahmadi Muslims, and targeted attacks against 
Shia Muslims. Despite the Pakistani Supreme Court ordering the 
government to create special protection forces for religious 
minorities, no such actions have been taken.

  <diamond> What will you do to press the Pakistani Government to 
        better protect religious minorities and crack down on militant 
        groups that target religious communities? How can the U.S. 
        Government provide support toward this effort?

    Answer. If confirmed, I plan to raise protection for religious 
minorities at the highest levels of the Pakistani Government. Our 
immediate priority should be to identify the obstacles to improving 
religious freedom conditions in Pakistan and think creatively about 
ways to work with the Government of Pakistan to change those 
circumstances for the better. I believe the U.S. Government should 
continue to consult with the Government of Pakistan on how to prevent 
further atrocities against religious minorities, including by sharing 
information about attacks, designating the leaders of the organizations 
as terrorists both domestically and at the U.N., and assisting with 
rule of law and investigations training for Pakistani law enforcement 
officials.

    Question. While Pakistan overwhelmingly meets the country of 
particular concern (CPC) threshold, the U.S. Government can take other 
steps. For instance, the U.S. Commission on International Religious 
Freedom (USCIRF) has recommended that the U.S. Government create a 
special bilateral engagement with the Pakistan Minorities Commission 
and religious minorities in Parliament. There are other possibilities 
for positive engagement, such as training for provincial minority 
affairs offices.

  <diamond> What actions will you take to positively engage Pakistan on 
        these issues? Would you support a special U.S./Pakistan 
        bilateral engagement around issues of religious tolerance?

    Answer. If confirmed, I will look closely at the USCIRF 
recommendations. Upon initial review, I see no impediment to 
establishing a deeper dialogue with the Government of Pakistan to 
explore ways to promote religious freedom and protect religious 
minorities. The IRF Act gives us several tools to promote religious 
freedom, CPC designations being only one of them. Additional tools 
include bilateral and multilateral engagement, denying visas to the 
United States to foreign government officials who are responsible for 
severe violations of religious freedom, and implementing programming to 
promote religious tolerance. The Government of Pakistan has engaged us 
more vigorously in the aftermath of the attack on the Army Public 
School in Peshawar, the Government of Pakistan has engaged with us on 
issues related to countering violent extremism. I believe, given 
Pakistan's stated recognition of the threat posed to its citizens by 
those who foment sectarian tension, that there is reason to expect 
greater cooperation in this critical area.

    Question. Pakistan leads the world in jailing people for blasphemy. 
According to USCIRF, almost 40 people either are on death row or 
serving life sentences for the ``crime'' of blasphemy, a statistic 
unmatched anywhere else in the world. People like Aasia Bibi continue 
to be jailed, while others are killed by mobs--such as the Christian 
couple that was lynched to death in November and their bodies were 
thrown into a brick kiln. Pakistanis brave enough to confront blasphemy 
risk their lives including Salaman Taseer, Shahbaz Bhatti, and more 
recently human rights lawyer Rashid Rehman.

  <diamond> As Pakistan is considering adding much-needed procedural 
        safeguards to the blasphemy law, how will you work to 
        proactively encourage Pakistan to see that these changes are 
        made? How can you press the Pakistanis to arrest and 
        aggressively prosecute participants in mob violence, as 
        oftentimes they are charged but never prosecuted?

    Answer. The Government of Pakistan's consideration of adding 
procedural safeguards to protect against abuse of the blasphemy law is 
a positive step, and one that I will support actively in my engagement 
with senior Pakistani officials, if confirmed. All too often, the 
blasphemy laws are abused by private citizens with other objectives in 
mind, such as to gain an advantage in land disputes, or as retribution 
for other disputes. I understand that as a matter of current policy, we 
regularly express our concerns to Pakistani authorities about the state 
of religious freedom in Pakistan. We continue to encourage the 
Pakistani Government to repeal the blasphemy law, and to hold 
accountable those who commit acts of violence in the name of religion. 
The administration urges fair and transparent proceedings where 
defendants and lawyers can safely argue their cases.
    If confirmed, upon my arrival it will be a personal priority in 
Pakistan to see that more can be done to encourage the change that we 
seek.

    Question. In recent weeks, Pakistan has been taking actions to 
heavily regulate NGOs operating in their country, including temporarily 
shutting down Save the Children's offices. The government is 
considering new NGO law which would require NGOs to operate under the 
Ministry of Interior.

  <diamond> If this law is passed, will you work to ensure that the 
        government does not abuse or misuse it to harass or persecute 
        NGOs for their legitimate operations, including reporting and 
        advocacy on human rights issues?

    Answer. The work of international and local NGOs to carry out their 
development objectives is critical to achieving Pakistan's and our own 
goals that we have agreed upon with the Government of Pakistan. NGOs 
must operate within the regulations of the host government. If 
confirmed, I intend to work with the Government of Pakistan to ensure 
that NGOs are able to operate legally and effectively.

                               __________

Responses of Sheila Gwaltney, Nominated to be Ambassador to the Kyrgyz 
          Republic, to Questions from Members of the Committee

               ambassador-designate gwaltney's responses 
                    to questions from senator risch
    Question. U.S. policy has sought to support regional integration as 
a way to improve economic success. Given the withdrawal of the U.S. 
from Manas Air Base, the deep relationship with Russia, the growing 
influence of China in the region, and difficult relations with 
neighbors, what prospects do you have for U.S. policy in Kyrgyz 
Republic? What can we realistically accomplish?

    Answer. Geographic proximity, economic links, and historical ties 
give Russia and China strong influence in the region. The Kyrgyz people 
have long had complex relationships with both of those nations. We 
fully support the aspirations of the Kyrgyz Republic to pursue a 
multivector foreign and economic policy, and we do not accept any 
assertions that the Kyrgyz Republic must choose between the United 
States and Russia or China.
    Since Kyrgyzstan's independence nearly 24 years ago, our bilateral 
relationship has been based on mutual respect and mutual benefit. The 
basis of our engagement is to support a sovereign, independent, stable, 
and secure state that has good relations with its neighbors and is able 
to provide opportunities for its people. For example, we welcomed the 
strong support of the Kyrgyz Republic for the CASA-1000 energy project 
as an example of better regional integration and cooperation. As 
recently as April bilateral consultations, the Kyrgyz Government has 
made clear its strong interest in maintaining a cooperative, productive 
relationship with the United States.
    U.S. engagement since 1991 has made an important impact on the 
Kyrgyz Republic. Our assistance programs have made significant 
contributions to help build democratic institutions, to promote 
stability and prosperity in the country, to support educational 
exchanges, and to enhance opportunities for U.S. businesses through an 
improved investment climate.
    The Kyrgyz Republic has a talented population with half of its 
citizens under the age of 25. Over 1,000 of these young men and women 
have traveled to the United States through the Future Leaders Exchange 
Program, and many more have experienced the people and values of the 
United States through our public diplomacy programs and through 
interaction with the over 1,000 Peace Corps Volunteers who have served 
in the Kyrgyz Republic. If confirmed, my team and I will work 
energetically to strengthen, deepen, and broaden the relationship 
between the United States and the Kyrgyz Republic.

    Question. While U.S. policy has focused on support for democratic 
institutions in the country, how do you see the upcoming parliamentary 
elections proceeding? Will we see active participation from civil 
society or should we be concerned about undue influence?

    Answer. The United States is committed to supporting the Kyrgyz 
Republic's continued democratic development. While democracy is broader 
than just elections, they are a critical component. We encourage the 
Kyrgyz Republic to strengthen its democratic gains by holding free and 
fair elections in conformity with international standards. The Kyrgyz 
Republic has held three successful national elections since the 2010 
revolution--the constitutional referendum in 2010, the parliamentary 
elections in 2010, and the Presidential election in 2011. The upcoming 
2015 parliamentary election and Presidential elections in 2017 will be 
key indicators of the country's democratic progress.
    The Kyrgyz Republic has a vibrant civil society, whose active 
participation helps reinforce the country's young democracy. In 
previous elections, the national NGO Coalition for Democracy and Civil 
Society played an exceptional role monitoring the voting process. There 
remain, however, significant administrative capacity challenges in the 
Kyrgyz Republic's ability to manage elections. If confirmed, I plan to 
work closely with civil society and the Kyrgyz Government to assist 
that nation to solidify its democratic institutions.

    Question. With the drawdown in Afghanistan what concerns do you 
have regarding an increase in terrorism and drug trafficking in the 
country? Are we seeing an actual increase or is the government 
overstating what is occurring?

    Answer. As noted in the Department of State's Country Report on 
Terrorism, there were no reported terrorist attacks in the Kyrgyz 
Republic in 2014, although security forces arrested several individuals 
suspected of affiliation with terrorist organizations and terrorist 
activities abroad. Drug trafficking routes through Central Asia are a 
long-standing concern and, if confirmed, I intend to work with the 
Kyrgyz Government and international partners to increase local capacity 
and enhance regional cooperation to combat this problem.
    Our security cooperation with the Kyrgyz Republic focuses on 
enhancing border security, strengthening regional counternarcotics 
efforts, countering terrorism and violent extremism, promoting 
professional conduct and respect for human rights by security forces, 
and working toward a stable, secure Afghanistan. We have developed the 
Central Asia Counternarcotics Initiative (CACI) in coordination with 
the Drug Enforcement Administration, to intensify efforts against drug 
trafficking in the region. Expanding our cooperation in this arena not 
only helps the Kyrgyz Republic deal with security challenges, it helps 
solidify our diplomatic ties and deepen and broaden our partnerships.
    The government of the Kyrgyz Republic is increasingly aware of the 
threat of terrorism in the region and the dangers of recruitment of 
Kyrgyz citizens by violent extremist organizations. The Kyrgyz 
Republicsent a high-level delegation to attend the White House summit 
on countering violent extremism in February. With respect to 
Afghanistan, in April 2015, a U.S interagency Afghanistan Briefing Team 
traveled to the Kyrgyz Republic to share assessments and explore 
avenues for better cooperation with top officials in the Kyrgyz 
Government. The Kyrgyz Government has voiced its support for the 
current Afghan Government and has embraced the CASA-1000 project that 
is planned to supply electricity in support of Afghanistan's 
development.

                               __________

Responses of Atul Keshap, Nominated to be Ambassador to the Democratic 
  Socialist Republic of Sri Lanka and to the Republic of Maldives, to 
                Questions from Members of the Committee

                ambassador-designate keshap's responses 
                    to questions from senator cardin
    Question. What is the extent of U.S. security cooperation with Sri 
Lanka? What are the specific conditions under which the U.S. would 
enhance our security relationship with Sri Lanka? What specific 
progress on accountability and reconciliation will the U.S. require 
from the Sri Lankans before moving forward on the security 
relationship?

    Answer. U.S. security assistance for Sri Lanka remains limited by 
the policies that were in place during the previous government and 
focuses on four areas key to our national interests: maritime security, 
disaster response, peacekeeping training, and educational support. 
Examples include the provision of demining equipment and training to 
help clear mines remaining after the civil war. For the expenditure of 
approximately $500,000 in the last year, Sri Lankan students have 
attended courses including International Law of Military Operations, 
Gender-Based Violence and Women's Health, Law of Armed Conflict and 
Human Rights, Legal Aspects of Combating Corruption, and Approaches for 
the Re-integration of Ex-Combatants.
    We can envision benefits to both our countries, and to peace and 
security in the Indo-Pacific region as a result of a strengthened 
military relationship contingent upon progress on accountability, human 
rights, and reconciliation. Future security assistance and programming 
will be greatly influenced by successful initiatives to credibly hold 
individuals accountable for human rights violations or violations of 
international humanitarian law as well as greater institutional 
reforms. We will continue to vet those security force units that seek 
U.S. assistance, and consistent with U.S. law and policy, we will not 
provide assistance to a unit if we have credible information that it 
committed a gross violation of human rights.
    If confirmed, I will continue to urge reforms to ensure the Sri 
Lanka military functions as a professional and accountable peacetime 
force, dedicated to human rights, rule of law, and democracy.

    Question. What are the obstacles to reaching reconciliation with 
Tamil communities in Sri Lanka? How might the United States best assist 
in this process? Do you support the release of the UNHRC on war crimes 
in Sri Lanka report this year?

    Answer. Reconciliation will not happen all at once; it requires 
time and concrete actions. The current situation in Sri Lanka developed 
over 30 years of conflict and several difficult post-conflict years. 
The Sirisena government is working to restore mutual trust and 
confidence, for the benefit of all Sri Lankans of all ethnicities and 
religions. For the sake of future peace and prosperity, it is vitally 
important to get this right.
    The Sirisena government has made a public commitment to take 
credible steps to promote justice, accountability, and reconciliation 
in relation to human rights abuses and conflict-related crimes. Such 
processes are never easy, but the United States will continue to 
support credible efforts to address these important and difficult 
issues in a way that facilitates reconciliation as well as a durable 
and lasting peace for the Sri Lankan people.
    We support the release of the U.N. investigation's report as part 
of building a peaceful, prosperous, inclusive Sri Lanka. Our assistance 
program over the last 5 years has sought to strengthen the 
participation of Tamil and other minority and marginalized communities. 
Moving forward, our expanding program would continue those efforts, 
including through economic empowerment, strengthening civil society, 
fostering inclusion of diverse religious and community leaders, and 
helping support the rule of law.

    Question. Democratic backsliding in the Maldives is very concerning 
and is potentially damaging to the U.S.-Maldives bilateral relationship 
including military to military activities. How will you emphasize the 
importance of the rule of law in the Maldives? What levers does the 
United States have to encourage a more democratic course in the 
country?

    Answer. If confirmed, I will continue to express our government's 
concern at the lack of appropriate criminal procedures during recent 
trials of political figures, including reports that the trials fell 
well short of Maldivian and international standards for due process. We 
are also concerned about actions that undermine democratic institutions 
and fundamental freedoms, including freedoms of expression and 
assembly.
    If confirmed, I would work with the government, civil society 
groups, and international partners to urge the Maldivian Government to 
uphold its commitments to rule of law, democratic principles, and human 
rights.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What is the 
impact of your actions? Why were your actions significant?

    Answer. I place the highest emphasis on advancing American values 
of human rights, religious freedom, and democracy. As human rights 
officer at our Embassy in Morocco early in my career, I learned how 
crucial it is to help ensure strong protections for religious and 
ethnic minorities and NGO and political activists.
    In assignments working on South Asia spanning the past decade, I 
engaged with governments across the region to urge greater protection 
for women, religious minorities, civil society, human rights defenders, 
and labor rights activists, and worked to raise awareness of the 
perniciousness of trafficking in persons.
    While progress in these areas can be slow, I am most gratified by 
efforts undertaken by the United States, including at the United 
Nations in Geneva, to highlight the need for a credible process of 
reconciliation in Sri Lanka.
    As Office Director for U.N. Human Rights from 2008-2010, as Office 
Director for Sri Lanka 2010-2012, and as Deputy Assistant Secretary for 
South Asia, 2013 to present, I contributed to efforts by the U.S. and 
other countries to highlight this matter in the U.N. Human Rights 
Council, including the passage of three important resolutions on Sri 
Lanka.
    The political transition brought about by the January election has 
provided the opportunity for Sri Lanka to achieve enduring peace and 
prosperity, and true reconciliation if the government continues to 
advance democracy, human rights, accountability and political 
inclusion.
    If confirmed, I would strive fully to advance the cause of 
democracy and human rights in Sri Lanka and Maldives.

    Question. What are the most pressing human rights issues in Sri 
Lanka and Maldives? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in Sri Lanka 
and Maldives? What do you hope to accomplish through these actions?

    Answer. We want to help the Sri Lankan people strengthen democracy, 
civil society, and human rights, including freedom of expression and 
freedom of religion or belief. We want to help build a lasting peace 
and fellowship among Sri Lanka's ethnic and religious communities, 
including credible justice, accountability, and reconciliation that can 
facilitate closure for those who suffered and lost loved ones during 
the war.
    It is important to get this right, and the U.N. and international 
community can lend useful insight to the efforts of the Sri Lankan 
people. We would assess how best to focus resources, including our 
assistance budget and Mission Colombo's expertise, to helping Sri 
Lankan-led efforts to facilitate closure.
    In Maldives, we are worried about the current state of human 
rights, rule of law, and lack of due process. All citizens should be 
allowed to exercise their human rights and fundamental freedoms.
    If confirmed, I would continue to urge the Maldivian Government to 
take steps to restore confidence in democracy and the rule of law, 
including through social media, a powerful vehicle for information-
sharing in Maldives. I would continue to encourage and support 
democracy, judicial independence, and the rule of law in Maldives, 
joined by regional and international partners who share our strong 
concerns.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Sri Lanka and 
Maldives in advancing human rights and democracy in general?

    Answer. In Sri Lanka, for any justice and accountability process to 
be meaningful, it needs to be led and owned by the Sri Lankan people 
and needs to be credible and transparent. This is too complex a process 
for any country to tackle by itself. Sri Lanka can benefit from the 
assistance of the international community, and we stand ready to 
support those efforts.
    In Maldives, the challenges include politically motivated 
prosecutions against critics of the courts and government as well as 
attacks on independent institutions and civil liberties. If confirmed, 
I will continue to urge the Maldivian Government to take steps to 
restore confidence in its hard-fought democracy.

    Question. Are you committed to meeting with human rights and other 
nongovernmental organizations in the U.S. and with local human rights 
NGOs in Sri Lanka and Maldives?

    Answer. Yes, absolutely; I welcome such opportunities for dialogue. 
In my previous assignments I have cultivated robust consultation with 
local and international human rights organizations. If confirmed, I 
will further this commitment as I believe maintaining this dialogue is 
crucial to informing U.S. Government policies, advancing our values, 
and ensuring all voices are heard.

    Question. If confirmed, please describe steps that you will take to 
enhance effective implementation of Section 620M of the Foreign 
Assistance Act of 1961, commonly known as the Leahy amendment, within 
the Embassy.

    Answer. Human rights vetting consistent with the Leahy amendment is 
an integral and essential part of U.S. assistance programs worldwide. 
The Leahy amendment helps safeguard against perpetrators of gross 
violations of human rights from benefiting from our training and 
assistance programs. If confirmed, I will ensure Embassy Colombo will 
continue scrupulously to adhere to the requirements of the Leahy 
amendment, and the Department will vet all potential security 
assistance recipients.

                               __________
                ambassador-designate keshap's responses 
                    to questions from senator risch
    Question. Given the new government how do you see Sri Lanka's 
rebalance toward China, the United States, and India? What policies 
should we be considering to assist their reforms? Do you believe their 
shift is sustainable?

    Answer. Our overarching goal is to see Sri Lanka become more 
prosperous, stable, and secure to the benefit of all of its citizens 
and to the broader region. The United States promotes regional 
integration and supports Sri Lanka's cooperation with its neighbors 
across the Indo-Pacific region, particularly with democracies such as 
India, with which Sri Lanka shares bonds of history, culture, and 
traditions of democracy and rule of law. To the extent that India, 
China, and others in the region lend their energy and support to the 
efforts of Sri Lanka to strengthen their democracy and enhance their 
productivity, we welcome those efforts. To the extent that countries in 
the region contribute to and uphold a rules-based order, commit 
themselves to peaceful resolution of disputes, and defend freedom of 
navigation and commerce, we welcome those efforts. To the extent that 
countries in the region engage in trade and investment that meets the 
highest ethical and environmental standards, as exhibited by American 
companies, it can have a positive impact on living standards and 
prosperity.
    We welcome the new Sri Lankan Government's professed desire to 
partner more closely with the United States, the United Nations, and 
the international community. It is for the people of Sri Lanka to 
determine their politics, but the international community can and 
should help the Sri Lankan people strengthen democracy, civil society, 
and human rights, including freedom of expression, including by the 
media, and freedom of religion.
    If confirmed, I would work with the government, civil society, and 
other partners to play a constructive role in helping Sri Lanka achieve 
its potential and deliver on the ambitions of its people, including 
meaningful, concrete steps to address outstanding concerns related to 
democratic governance, respect for human rights, reconciliation, 
justice, and accountability.
    I do believe the shift is sustainable. The Sri Lanka voters turned 
out in record numbers to send a clear signal that they want to return 
their country to its roots of democracy, inclusiveness, and rule of 
law. I believe the people of Sri Lanka will continue to insist that the 
government move in that direction, and, if confirmed, I would seek to 
add my energy to U.S. efforts to help them realize their positive 
vision.

                               __________
                ambassador-designate keshap's responses 
                    to questions from senator rubio
    Question. President Maithripala Sirisena is positioned to lead his 
country in a new direction that respects religious diversity and 
freedom. He said in a February 2015 speech, ``While protecting the 
country's main religion Buddhism, we also protect the rights and 
freedom of Hindu, Muslim, and Catholic people in practicing their 
religion and create consensus among them to build up this country.'' 
Since coming into office, he has created three new ministries to handle 
religious affairs for the Muslim, Christian, and Hindu communities 
respectively. In addition, the special police unit created by the 
former government has been disbanded.

  <diamond> How can the U.S. Government strongly encourage the positive 
        movement that has occurred in recent months? What programs can 
        be undertaken to deepen respect for religious diversity and 
        religious freedom?

    Answer. The United States promotes respect for religious diversity 
and freedom of religion or belief and strongly supports the Sri Lankan 
Government's recent steps to foster reconciliation between Sri Lanka's 
religious communities. In a welcome departure from the politics of the 
recent past, President Sirisena and his administration have exhibited 
in word and deed a genuine desire to achieve the pluralistic society 
voters demanded in January.
    It is for the people of Sri Lanka to determine their politics, but 
the international community and the U.S. can, and should, help the Sri 
Lankan people strengthen civil society and human rights, including 
freedom of religion or belief. If confirmed, I would work with the U.S. 
Congress, the Sri Lankan Government, civil society, religious leaders 
and others to promote respect for freedom of religion or belief and 
religious diversity, and would work to further U.S. Embassy programs 
aimed at bringing religious communities together.

                               __________
                ambassador-designate keshap's responses 
                    to questions from senator coons
    Question. Reconciliation Efforts.--The government of President 
Sirisena, elected in January 2015, has made reconciliation one of its 
primary goals. What concrete steps has the government taken toward 
reconciliation and what more do you think needs to be done? For 
instance, the Tamil National Alliance said right after the election 
that the release of political prisoners, return of land, and 
demilitarization were immediately actionable to show steps toward 
reconciliation. Have these been accomplished? Will Tamils, Muslims, and 
other minority groups be given equal opportunities under this new 
government?

    Answer. The Sirisena government has made a public commitment to 
take credible steps to promote justice, accountability, and 
reconciliation in relation to human rights violations and abuses. Such 
processes are always challenging, but the United States will continue 
to support credible efforts to address these important and difficult 
issues in a way that facilitates reconciliation as well as a durable 
and lasting peace for the Sri Lankan people. We have welcomed important 
steps taken by the Sirisena administration, including releasing 
political prisoners on bail and returning some land in the North and 
East, as well as gestures of conciliation, such as allowing the singing 
of the National Anthem in Tamil.
    The Sri Lanka voters turned out in record numbers to send a clear 
signal that they want to return their country to its roots of 
democracy, inclusiveness, and rule of law. While it is for the people 
of Sri Lanka to determine their politics, the administration wants to 
help the Sri Lankan people strengthen democracy, civil society, and 
respect for human rights and to pursue an inclusive government that 
allows for meaningful participation by all Sri Lankans of all ethnic 
and religious groups. If confirmed, that will be my goal as well.

    Question. UNHRC Role.--Since the United States joined the U.N. 
Human Rights Council in 2012, we have led three resolutions on Sri 
Lanka regarding accountability for crimes committed during and after 
the war, and on ongoing human rights abuses. Should Sri Lanka stay on 
the agenda of the UNHRC? Does the United States plan to lead a fourth 
resolution on Sri Lanka before the end of our term in December 2015? 
What are the dangers inherent in allowing Sri Lanka to slip from 
international attention, such that accountability is pursued unchecked 
by international actors through domestic efforts on the island?

    Answer. We welcome the new government's professed desire to partner 
more closely with the United States, the United Nations, and the 
international community. We are heartened by the new government's 
engagement with the U.N. Office of the High Commissioner in Geneva.
    Over the past 5 years, the United States has been steadfast in 
pursuit of justice, accountability, and reconciliation. The new 
government in Sri Lanka presents an opportunity for a more 
collaborative approach. Our focus is on urging a credible process. It 
is too early at this juncture to determine what our position will be 
later this year. If confirmed, I will work to encourage Sri Lankan 
engagement with the U.N. on these vitally important issues, consistent 
with the attention and focus we have dedicated in recent years.

                               __________


                              NOMINATIONS

                              ----------                              


                         THURSDAY, JULY 9, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Michele Thoren Bond, of the District of Columbia, to be an 
        Assistant Secretary of State (Consular Affairs)
Dr. Sarah Mendelson, of the District of Columbia, to be U.S. 
        Representative on the Economic and Social Council of 
        the United Nations
                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Isakson, and Cardin.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    We thank you for being here.
    Today the committee will consider two nominees, the Hon. 
Michele Bond to be Assistant Secretary of State of Consular 
Affairs, and Dr. Sarah Mendelson to be the Representative of 
the United States on the Economic and Social Council of the 
United Nations with the rank of Ambassador, as well as to be 
the Alternate Representative of the United States to the 
General Assembly of the United Nations.
    The Assistant Secretary of State for Consular Affairs is 
responsible for issuing passports to Americans looking to 
travel abroad, issuing visas to people around the world trying 
to emigrate or to visit the United States, and assisting 
American citizens abroad in emergency and nonemergency 
situations. These duties also include the facilitation of 
international adoptions, and we certainly are very interested 
in that, and thank you for your work relative to that in the 
past.
    Ambassador Bond is an accomplished consular officer and 
currently the Acting Assistant Secretary. I look forward to 
hearing her views on how to improve the passport and visa 
issuance processes and better serve Americans abroad. I 
appreciate Ambassador Bond's efforts regarding the suspension 
of exit permits and the DRC, especially with her visit this 
spring to press the Congolese to issue permits to U.S. citizens 
who have adopted children there. One of our staffers, Sarah 
Downs, has spent inordinate amounts of time traveling there 
herself, and again we thank you for your efforts on behalf of 
so many people. I look forward to hearing about the Bureau's 
strategy to work to resolve this issue as the DRC Government 
reviews and approves adoption cases and embarks on implementing 
adoption reform legislation.
    The U.S. Representative to the Economic and Social Council 
of the United Nations--that is a mouthful--ECOSOC, represents 
the United States on intergovernmental bodies which oversee the 
U.N.'s work on economic, social, and human rights issues, and 
the U.N.'s field operations in the areas of development, post-
conflict peace-building, and humanitarian assistance.
    The Council's functions and powers include initiating 
studies and reports on human welfare and the quality of life 
which drives action at the U.N. General Assembly. Modern 
slavery is inflicted on as many as 27 million men, women, and 
children around the globe. Senator Cardin and myself and others 
have passed unanimously out of this committee a bill that we 
think can have transformative effects on this issue if we can 
all make it happen in the appropriate way, so we obviously are 
very interested in your nomination. It is obviously a very 
important issue. I look forward to hearing and learning more 
how you will address this in your new role, if confirmed.
    Lastly, with the U.N. General Assembly voting on the 
Sustainable Development Goals in September, the United States 
will require strong representation. I hope you can provide some 
insights on how this process will affect U.S. interests.
    I thank you for being here. I know you are going to 
introduce your families in just a moment. We welcome them.
    And with that, I will turn it over to our ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, let me thank Senator Corker for 
arranging this hearing on two very important nominations. I 
thank you very much for accommodating this hearing. I know it 
is a very busy time for the Senate Foreign Relations Committee, 
but one of our principal responsibilities is to timely consider 
President Obama's nominees, so thank you very much for 
scheduling these hearings.
    And, Mr. Chairman, I want to welcome two nominees that I 
have adopted and represent in the United States Senate, along 
with Senator Mikulski. You see, they are from the District of 
Columbia, and we have not seen fit to give them full 
representation here in the United States Congress. So Senator 
Mikulski and I, recognizing that the District is former 
Maryland land, we have adopted the residents.
    The Chairman. Actually, I think that is a resolution to the 
issue, to become a part of Maryland and be done with it. 
[Laughter.]
    Senator Cardin. One of the problems that we talk about is 
adoptions, so maybe this is an issue that we will be able to 
take up.
    Welcome to the Senate Foreign Relations Committee. I thank 
both of you for your public service and your willingness to 
serve our country in two very important positions during a very 
trying time. And I thank your families, because this truly is a 
family sacrifice. I know at least in one case it has been a 
family effort; both serve in the Foreign Service. So thank you 
both, and thank your families for what you are doing.
    The mission of the Bureau of Consular Affairs is to protect 
the lives and interests of American citizens abroad, and we 
thank you for that. There are a lot of challenges there. 
Foreign Service officers perform incredible service to our 
country. They deal with Americans who have trouble abroad, and 
that become a major problem for Foreign Service officers. They 
deal with foreign-sourced adoptions, which is an area that 
Senator Corker raised that we are very concerned about where 
some heart-rendering challenges have been imposed to prevent 
the completion of adoptions. And the visa processing system.
    Mr. Chairman, I was just, last week, in Havana meeting with 
our Foreign Service officers as they were handling 
applications. I must tell you, that is an incredible chore. 
They are undermanned from the point of view of the resources 
that they have, and there is a lot of pressure that they get 
everything right, and I thank them very much for their service.
    In regards to hostage situations, I just want to mention 
that, because President Obama came out last week with a 
comprehensive rewrite of how we are going to handle 
circumstances such as the Weinstein situation we had in 
Maryland where a USAID worker was kidnapped and ultimately he 
lost his life. The administration is reorganizing that. I have 
introduced legislation, along with Senator Cornyn, so that we 
have a single-point person in order to deal with it, and I am 
hopeful that we can adopt the administration's proposal but 
improve it with a single point of contact person that we can 
hold accountable for coordinating all activities, but it also 
gives the family an opportunity to have a single-point contact, 
which was very much missing in the Weinstein case. So we might 
want to talk about that also during the nomination confirmation 
process.
    It is also a pleasure to welcome Ms. Mendelson to today's 
hearing. The U.S. Ambassador to the U.N. Economic and Social 
Council plays an important role in the multilateral diplomacy 
to advance the U.S. interests in strengthening human rights, 
sustainable development, and effective humanitarian assistance.
    I particularly want to focus on the Millennium Development 
Goals because that is very timely right now. I have had a 
chance to meet with Helen Clark of the United Nations. I also 
represent the United States Senate, along with Senator Johnson, 
at the U.N. as part of our mission, and I must tell you, I was 
encouraged and disappointed.
    The Millennium Development Goals have been incredibly 
successful, saved millions of lives. It has produced a 
worldwide effort to use all resources, including 
nongovernmental resources, to achieve demonstrable progress on 
saving young people, babies, helping women, et cetera.
    So the next Millennium Development Goals I hoped would get 
the same serious attention. Instead, I saw a list, I think it 
was 17 proposed goals, which is too many. I agree, there are 
too many. But number 16 is the one I think should probably be 
number 1, and I am concerned it is getting lost in the shuffle, 
and that is the concern about corruption and good governance 
which is so corrosive globally and so responsible for so many 
of the problems that we face.
    So I would hope that I will get a commitment here to make 
sure that we fight hard to make that part of the Millennium 
Development Goals and that we elevate its importance in our 
efforts to try to deal with that issue.
    There are many other issues I could talk about. I will 
mention one other that concerns me, the United Nations Family 
Planning Association. I say that because the Senate Republican 
appropriators this week inhibited funding to the United Nations 
Family Planning Association. I mention that because that is a 
source of funding right now for what we do in Syria and Jordan 
that provides normal childbirth delivery services to refugee 
camps that I am concerned could be cut off that could affect 
the safety and lives of many maternal cases. I would hope that 
we would find a strategy to make sure that that type of vital 
link to child safety is maintained, and I would welcome Dr. 
Mendelson's comments on this issue and many others.
    Mr. Chairman, I look forward to our discussion.
    The Chairman. Thank you, Senator Cardin. I appreciate the 
way that we were able to work together and make things happen, 
and certainly coordinating this meeting is much appreciated, so 
thank you.
    I will now turn to our nominees, the Hon. Michele Bond and 
Dr. Sarah Mendelson.
    Our first nominee is Michele Bond, a career member of the 
Senior Foreign Service, class of Minister Counselor with nearly 
40 years of experience. She currently serves as Acting 
Assistant Secretary for Consular Affairs. Ambassador Bond has 
served in a range of posts at home and abroad, including 
Ambassador to Lesotho from 2010 to 2012.
    Our second nominee is Sarah Mendelson, who currently serves 
as Senior Advisor and Director of Human Rights Initiative at 
the Center for Strategic and International Studies. Prior to 
joining the CSIS, Dr. Mendelson was Deputy Assistant 
Administrator for the Bureau of Democracy, Conflict, and 
Humanitarian Assistance at USAID.
    We want to thank you very much for being here and sharing 
your thoughts. Your full statements will be entered into the 
record without objection, and if you would just give us about a 
5-minute introduction, we will ask a few questions. I know you 
want to introduce your families, but thank you for being here, 
and we will start with Ambassador Bond.

  STATEMENT OF THE HON. MICHELE THOREN BOND, NOMINATED TO BE 
       ASSISTANT SECRETARY OF STATE FOR CONSULAR AFFAIRS

    Ms. Bond. Thank you, Mr. Chairman, Ranking Member Cardin, 
and distinguished members of the Foreign Relations Committee. 
It is the honor of a lifetime to be here with you this morning. 
I am grateful to the President and Secretary Kerry for the 
confidence and trust they placed in me by selecting me for this 
position.
    I am proud to introduce three of our four children, Robert, 
Elizabeth, and Lillian Bond. My family is the center of my 
life. I could not have been successful without their love and 
support. My family is also one of dedicated public servants, 
and that is why my husband and our younger son cannot be with 
us today. My husband, Ambassador Clifford Bond, is a retired 
Foreign Service officer currently working at the U.S. Embassy 
in Kiev, Ukraine, coordinating U.S. aid to Ukraine. Our son, 
Matthew, is a Peace Corps Volunteer, teaching English in 
Indonesia.
    My mother was the earliest and most influential inspiration 
for my life and for my career. She worked for the Department of 
State in post-war Stockholm when she was only 21, and years 
later at NATO and in Washington. She introduced me to public 
service. Through her, I met smart, dedicated Foreign Service 
officers and began to understand how diplomacy affects the 
lives of individuals and benefits our country.
    I began working at State as a college student during summer 
breaks and served on my first crisis task force in 1974, the 
invasion of Cyprus. Our resources were rudimentary compared to 
what we have now, but the issues would be familiar to any of my 
colleagues today. Desperate families called seeking information 
about loved ones in Cyprus and Greece. We scribbled details and 
contact information on 3-by-5 cards. It is an extraordinary 
honor to lead a Bureau that has the same dedication and focus 
today that I first experienced more than 40 years ago.
    Fortunately, we now have far more sophisticated tools, 
thanks in part to Congress' recognition of the vital importance 
of our work. The services we provide matter deeply and 
personally to our customers, your constituents. At its heart, 
Consular Affairs is about service. We provide assistance in 
small emergencies like lost passports, and large ones such as 
natural disasters. We are keenly aware that what we do is never 
routine for the people we serve. Given tens of thousands of 
daily opportunities to assist our customers, we are committed 
to meeting the highest standards of transparency, efficiency, 
and professionalism, creating lasting positive impressions of 
the United States and its government.
    This week I was named the recipient of the 2015 Thomas 
Jefferson Award by American Citizens Abroad. I am honored and 
humbled by this award which recognizes commitment to the 
Department of State's highest priority, the protection of 
American citizens overseas. I am proud, too, of the values it 
represents, openness, listening and responding to the needs of 
our citizens, and meeting those needs with friendly, 
professional efficiency, values I pledge to uphold should I be 
confirmed.
    Adoption, as you mentioned, Senator, is one of the most 
personal and sensitive issues in which we become involved, and 
it is one that matters to me deeply and has been a focus of my 
work for many years. My grandmother and her sister were 
adopted. I have worked on adoptions from behind the interview 
window overseas and at the policy table in Washington. I carry 
with me the stories of the families and children I have met. 
They inspire in me an abiding passion to bring greater 
transparency and accountability to intercountry adoptions. I am 
proud to have contributed to the United States leading role on 
the Hague Adoption Convention and, if confirmed, I will 
intensify our efforts to make intercountry adoption a real 
option for vulnerable children everywhere who need a family.
    Through careful adjudication of U.S. passport and visa 
applications, consular officers strengthen border security 
while facilitating legitimate travel that promotes economic 
growth, generates jobs across the country, and fosters good 
will and understanding about the United States across the 
world. If confirmed, I will ensure we continue to provide 
secure, efficient passport and visa services to protect our 
Nation, grow our economy, and unite families.
    In Consular Affairs, we are one team with one mission. But, 
of course, we do not work alone. I am committed to a whole-of-
government approach to serving our citizens. I take tremendous 
pride in leading a dedicated, talented team of over 13,000 
professionals working in nearly 300 offices around the world. 
We come from all walks of life and all corners of our Nation. 
We proudly include hundreds of veterans, and my team works hard 
to ensure that we are a diverse one. We work closely with 
Congress on every issue in our portfolio. We engage with your 
staff daily on issues that impact your constituents and their 
communities. If confirmed, I will sustain and build on Consular 
Affairs' reputation as a model for cooperative, productive 
relations with Congress.
    Thank you for your attention. I look forward to your 
questions.
    [The prepared statement of Ms. Bond follows:]

               Prepared Statement of Michele Thoren Bond

    Mr. Chairman, Ranking Member Cardin, and distinguished members of 
the Foreign Relations Committee, it is the honor of a lifetime to be 
here today. I am grateful to the President and Secretary Kerry for the 
confidence and trust they placed in me by selecting me for this 
position.
    I am proud to introduce three of our four children, Robert, 
Elisabeth, and Lillian Bond. My family is the center of my life. I 
could not have been successful without their love and support. My 
family is also one of dedicated public servants, and that is why my 
husband and younger son cannot join us today.
    My husband, Ambassador Clifford Bond, is a retired Foreign Service 
officer currently working at the U.S. Embassy in Kiev, coordinating 
U.S. aid to Ukraine. Our son Matthew is a Peace Corps Volunteer, 
teaching English in Indonesia.
    My mother was the earliest and most influential inspiration for my 
life, and my career. She worked for the Department of State, in post-
war Stockholm, when she was only 21, and years later at NATO, and in 
Washington. She introduced me to public service. Through her, I met 
smart, dedicated Foreign Service officers, and began to understand how 
diplomacy affects the lives of individuals and benefits our country.
    I began working at the Department of State as a college student, 
during summer breaks. I served on my first crisis task force in 1974--
the Cyprus invasion. Our resources were rudimentary compared to what we 
have now, but the issues would be familiar to any of my colleagues 
today--desperate families called seeking information about loved ones 
in Cyprus and Greece. We scribbled details and contact information for 
each family on 3x5 cards. It is an extraordinary honor to lead a Bureau 
that has the same dedication and focus today that I first experienced 
more than 40 years ago. Since then, I have had the privilege of serving 
in places as varied as the Netherlands, Guatemala, Russia, and Lesotho. 
The positions I held over the course of my tenure prepared me well to 
lead the Bureau of Consular Affairs.
Bureau of Consular Affairs
    My Bureau, CA, directly touches lives across the globe. We serve on 
the front lines of U.S. diplomacy, and our work is central to the 
advancement of U.S. foreign policy. We guard against foreign and 
domestic threats by assisting U.S. citizens overseas and safeguarding 
our borders at home. We are committed to protecting the integrity of 
our processes and decisions. We are there for our citizens during the 
best and worst days of their lives abroad--assisting with overseas 
adoptions, aiding those who have lost a loved one, or organizing an 
evacuation to get our citizens to safety. We open up the world to our 
citizens with one of the world's most coveted travel documents--the 
U.S. passport. The impact of our work is felt across the Nation. Our 
work affects the lives of everyone in this room and every one of your 
constituents.
    Our most valuable asset, by far, is our staff. The members of the 
consular team are incredible public servants. I have seen how the 
Bureau has met the challenges of 21st century diplomacy, adapted 
technology to improve the speed, scope, and quality of our service, 
learned from experience and embraced innovation. Investment in CA's 
human capital is vital to engage, develop, and retain these talented 
professionals. If confirmed, I will build on the hard-won achievements 
of my predecessors by sustaining a well-trained, motivated, dynamic, 
and efficient workforce.
    I pledge that the Bureau of Consular Affairs will continue to 
protect our citizens abroad and provide all available assistance for 
any U.S. citizen in need overseas. We will continue to vigilantly 
protect our Nation from those who wish to harm our citizens. We will 
further our efforts to make international adoption a real option for 
children who need permanent families, knowing they will be welcomed 
into American hearts and homes. Today I will discuss a few of the many 
achievements of our great team and how we develop leaders and 
innovators in foreign policy by furthering the vibrant culture of the 
Bureau of Consular Affairs.
Overseas citizens services--CA's number 1 priority
    The safety and protection of U.S. citizens overseas is among the 
U.S. Government's highest priorities, and CA's number one priority. CA 
has assisted U.S. citizens affected by a number of recent crises, 
including earthquakes in Nepal, political strife in Burundi, and the 
influx of those fleeing Yemen to Djibouti and other countries. In FY 
2014, CA evacuated U.S. citizens from areas affected by hurricanes, 
typhoons, and Ebola; continued our engagement on detainee and hostage 
cases; visited 8,600 prisoners; performed 30,000 welfare and 
whereabouts checks; documented 66,000 U.S. citizen children born 
abroad; and consoled 10,200 bereaved families. We assisted thousands of 
U.S. citizens affected by abuse, mental illness, and crime abroad.
    We promote intercountry adoption as a viable option throughout the 
world. We work to prevent international parental child abduction and to 
seek the return of abducted children.
    Over a third of U.S. citizens hold a U.S. passport. Increasingly, 
they travel to destinations off the beaten path and engage in more 
adventurous activities. Our job to protect their safety and welfare 
remains the same, but is now more challenging. We proactively reach out 
to citizens to deliver the information they need to travel safely and 
responsibly. Our Consular Information Program, including Travel Alerts, 
Travel Warnings, and the Worldwide Caution, is the Department's primary 
tool for providing U.S. citizens with timely, accurate information 
about potential threats to their safety abroad.
    We continuously harness new technologies to keep information 
flowing during rapidly changing circumstances or crises overseas. We 
are on duty 24/7 to respond immediately as crises arise. Our Office of 
Policy Coordination and Public Affairs works with colleagues overseas 
to send messages out through social media outlets including Facebook 
and Twitter. Constant engagement with the public through these venues 
allows us to get the message out quickly in times of crisis. Our goal 
is to provide our citizens with the information and resources they need 
to make their own appropriate decisions in real time.
    CA understands the gravity of our responsibility to U.S. citizens 
traveling overseas, and we consult closely with interagency partners 
and Congress on policies and issues affecting our citizens' safety 
abroad. We have steadily increased our ability to inform and assist 
families during intercountry adoptions, for example.
    U.S. Citizen Hostages Policy: CA played a key role in the 
interagency group tasked with a Presidentially directed, government-
wide review of the management of overseas hostage cases. Based on the 
hostage policy review, the President has established a Washington-
based, FBI-led interagency Hostage Recovery Fusion Cell (HRFC), a 
National Security Council-convened Hostage Response Group (HRG) 
providing policy guidance to the HRFC, and a Special Envoy for Hostage 
Affairs at the State Department who will lead diplomatic engagement on 
U.S. hostage policy and coordinate all diplomatic engagements in 
support of hostage recovery efforts. CA has assigned a consular officer 
fulltime to the HRFC as well as staff to support the Special Envoy's 
Office and to support hostage victims' families.
    U.S. Detainees Abroad: In the Bureau of Consular Affairs, we 
continually monitor the cases of citizens detained abroad and work to 
obtain the release of those wrongfully held overseas. U.S. citizen 
detainee cases can be highly visible, resource-intensive, and difficult 
to resolve, especially in countries without U.S. embassies.
    Three U.S.-Iranian citizens--Saeed Abedini, Amir Hekmati, and Jason 
Rezaian--are currently imprisoned in Iran. Abedini and Hekmati have 
been charged, tried, and sentenced; Rezaian has been charged but not 
tried. President Obama, Secretary Kerry, and Under Secretary Sherman 
have raised these cases with their Iranian counterparts. Department 
officials also regularly raise the case of Robert Levinson, a former 
FBI agent who has been missing in Iran since March 2007.
    International Parental Child Abduction (IPCA): CA is the U.S. 
Central Authority for the Hague Convention on the Civil Aspects of 
International Parental Child Abduction. We work closely with 73 Hague 
partner countries, and with authorities in non-Hague countries, to 
prevent situations where one parent wrongfully removes or retains a 
child away from his or her habitual residence, and to help left-behind 
parents seek return of, or access to, children who have been wrongfully 
removed or retained. CA recently released its first annual report under 
the Sean and David Goldman International Parental Child Abduction 
Prevention and Return Act of 2014. In 2014, 781 abduction and access 
cases were resolved. CA continues to encourage non-Convention partner 
countries to become party to the Convention. After years of diplomatic 
effort, CA and colleagues across the Department celebrated Japan's 
accession in April 2014.
    Universal Accreditation Act (UAA): We are delighted Congress passed 
the UAA. CA has engaged adoption service providers, advocacy groups, 
and national adoption organizations to inform them of the changes UAA 
introduced, to train on practical aspects of implementation, and to 
address issues and concerns as they arose before and after the UAA 
entered into force last July. Before the UAA, the standards of ethical 
conduct embodied in the Hague Adoption Convention applied in fewer than 
half of all intercountry adoption cases. Now, all U.S. citizens 
adopting abroad benefit from uniform standards governing the conduct of 
all U.S. adoption service providers. UAA also provides for universal 
monitoring and oversight of service provider adherence to those 
standards. The UAA closed a critical gap in protection for U.S. 
adoptive families.
    Democratic Republic of the Congo (DRC) Adoptions: The Department is 
seeking to unite nearly 600 Congolese children adopted, or in the 
process of being adopted, by U.S. citizens with their new families. The 
Congolese Government abruptly suspended issuance of exit permits almost 
2 years ago. Without exit permits, these children cannot join their 
families in the United States. We are addressing this issue on multiple 
levels. In addition to constant engagement by Embassy Kinshasa and 
Ambassador Swan, the Department's Special Advisor for Children's 
Issues, Ambassador Susan Jacobs, led a delegation to the DRC in 
December and pressed the Congolese Government on these issues. I 
visited Kinshasa in March, where I met government and parliamentary 
representatives, and some of the American parents who are living in 
Kinshasa with their children. I continue to follow this issue closely.
    Secretary Kerry urged President Kabila to lift the suspension in 
May, August, and October 2014. Last August, President Kabila and 
Secretary Kerry agreed to establish a joint commission to discuss 
options to allow children with finalized adoptions to depart and to 
consult on adoption reforms. Some progress has been made; 10 children 
with life-threatening medical conditions have received exit permits and 
several other cases are waiting to be reviewed by DRC officials. We are 
working with the other countries affected by this suspension, including 
Canada, Italy, Belgium, France, and the Netherlands, to press the DRC 
to resolve this protracted situation. We have met numerous times with 
congressional staff to keep them informed about this situation. If 
confirmed, I commit to you that I will continue to push for urgent 
resolution of these cases. These children belong with the loving 
families who have adopted them. We will continue to keep lines of 
communication open.
Passports--safeguarding the most coveted travel document
    The Bureau of Consular Affairs opens the world to millions of U.S. 
citizens. Our passport agencies unlock the gate to global experiences 
and mutual understanding for U.S. citizen travelers. By accurately and 
efficiently adjudicating U.S. passport applications, U.S. passport 
agencies and fraud prevention teams reliably provide U.S. citizens with 
the world's most coveted travel document, and keep that document out of 
the hands of criminals. We know Congress shares our goal of continually 
improving the integrity of the passport issuance process, and in this 
regard, we trust Congress and staffers will do everything possible to 
ensure that we have access to all needed databases, including the full 
Social Security Administration death file, access to State driver's 
license information, and both Federal and State level incarceration 
information.
    CA operates 27 domestic passport agencies, two document print 
centers, and two passport information and call centers across the 
United States. We have established 12 new passport agencies since 2008 
to handle rapidly increasing demand. We adjudicated 14.1 million 
passport applications in FY 2014, delivering more than 99 percent of 
those products within their targeted timeframes. There are currently 
nearly 1 million applications in the system--the highest volume since 
2009. In the last 2 fiscal years, passports generated nearly $3 billion 
in revenue. There are approximately 123 million valid passports in 
circulation.
    Foreign Terrorist Fighters: CA initiated policies and streamlined 
procedures to deny or revoke passports of U.S. citizens engaged in 
activities as Foreign Terrorist Fighters (FTFs) who pose significant 
threats to U.S. national security and foreign policy. CA works 
diligently with our federal partners to ensure that appropriate 
passport denial or revocation helps to keep the United States safe. We 
work closely with the FBI's Counterterrorism Division and other 
government departments and agencies to ensure broad familiarity with 
the availability and use of passport denial and revocation to prevent 
travel. We engaged with the Terrorism Screening Center and partnered 
with Diplomatic Security (DS) to provide assistance to the National 
Joint Terrorism Task Force.
    To address the potential threat posed by other FTFs using the 
identities or passports of ``unreported deceased'' individuals, we 
implemented procedures to cancel the U.S. passports of deceased FTFs 
and of hostages killed by terrorists. Cancelled passport information is 
available to all overseas posts and passport agencies, and is provided 
in real time to the Department of Homeland Security (DHS) and Interpol. 
We continue to work with the intelligence community and the National 
Counter Terrorism Center on potential passport revocation of suspected 
U.S. citizens serving as FTFs, and will facilitate revocation 
appropriately where sufficient evidence exists and the action is 
appropriate.
    Our domestic passport agencies and overseas posts remain on alert 
for terrorism-related information in conducting adjudications and work 
with DS to share relevant information with our federal partners.
    Passport Surge: The projected demand for passport applications for 
FY 2015 was recently revised to 14.5 million. We expect an 
unprecedented passport renewal surge in the coming years. To prepare 
for this, we are modernizing our information systems, including 
planning for online passport renewals, automated refunds, and 
additional payment options, to improve customers' overall experience 
and manage our workload more efficiently.
    Next Generation Passport: CA will begin systemwide deployment of 
the Next Generation Passport in FY 2016. This upgraded document 
features security enhancements designed to prevent counterfeiting and 
fraudulent use of lost or stolen passports. The most prominent 
enhancement is a laser-engraved polycarbonate data page.
Visas--uniting families, growing the economy, securing our Nation
    Secretary Kerry believes that foreign policy is economic policy and 
this is particularly true when it comes to visa policy. The Bureau of 
Consular Affairs directly affects businesses across the country by 
facilitating international tourism and helping local entrepreneurs 
recruit the world's innovators to help them develop the next generation 
of technology. Demand for visas to visit the United States has 
skyrocketed worldwide.
    Others have recognized our achievements as well: the United States 
Travel Association awarded the Bureau's Deputy Assistant Secretary for 
Visa Services the ``Distinguished Partner Award'' in March 2015, 
writing that he ``helped create an environment that welcomes 
international visitors to the United States, who bring with them 
spending dollars and good will that have helped advance the U.S. 
economy and American public diplomacy.'' In 2014, a record 75 million 
international visitors traveled to the United States, a 7-percent 
increase over 2013; they spent over $220 billion. Tourism is America's 
largest services export and one that can't be outsourced.
    Our investments to increase visa processing capacity and decrease 
visa interview wait times worldwide create jobs across the United 
States. International travelers support 1.1 million U.S. jobs. In a 
January 2012 Executive order, President Obama directed State to 
increase visa-processing capacity in China and Brazil by 40 percent in 
2012 and to ensure 80 percent of applicants worldwide wait less than 3 
weeks for their visa interviews. We exceeded both goals. CA reached the 
global target for wait times in August 2012, and wait times in key 
markets such as Brazil, China, India, and Mexico have rarely exceeded 
single digits since 2012. More than 95 percent of visa applicants 
requiring an interview receive an appointment in less than 3 weeks.
    The United States will continue to attract tourists, businesses, 
students, and talent from around the world--in fact, President Obama's 
goal is to welcome 100 million international visitors annually by 2021. 
The vast majority of visitors travel to the United States with no 
malicious intent. However, some visa applicants are criminals or 
terrorists. Every visa decision we make, thousands of times a day, is a 
national security decision. Each of our consular officers understands 
this. CA is diligently working with DHS to expand visa reciprocity, the 
Visa Waiver Program, and the Interview Waiver Program, as appropriate, 
because these efforts allow us to focus our resources where the risks 
are highest.
    Afghan and Iraqi Special Immigrant Visa (SIV) Programs: We could 
not do our jobs overseas without the dedication and expertise of our 
locally engaged staff. Working for the U.S. Government sometimes comes 
at a personal cost to our staff and their families. In Iraq and 
Afghanistan, this work has placed some local colleagues in grave 
danger. CA works with the interagency to adjudicate and efficiently 
issue Special Immigrant Visas to colleagues in Iraq and Afghanistan who 
worked alongside our soldiers and diplomats.
    As of December 14, 2014, we had issued all 4,000 Afghan principal 
applicant SIVs authorized for use by the Consolidated Appropriations 
Act for FY 2014 (3,000 SIV numbers, available through September 30, 
2015) and the Emergency Afghan Allies Extension Act of 2014 (1,000 SIV 
numbers, available through December 31, 2014). The FY 2015 National 
Defense Authorization Act authorized 4,000 additional Afghan SIVs for 
use by March 31, 2017. To date, we have issued more than 800 of these 
SIVs. As of June 26, more than 13,000 Afghans are at some point in the 
SIV application review process. The Iraqi program has enough visa 
numbers available to respond to demand. Although we issued record 
numbers of SIVs in FY 2014, there remain some long-pending cases 
undergoing security vetting. We are working with the interagency to 
speed processing and resolve cases while steadfastly maintaining the 
security of our immigration system and of the United States.
    Visa Waiver Program and Interview Waiver Pilot Program: The Visa 
Wavier Program is essential to achieve the administration's policy and 
security goals, and maximize efficiency for our customers. We work with 
DHS to expand the Visa Waiver Program as appropriate, with Chile 
joining in 2014. With DHS concurrence, we indefinitely extended the 
Interview Waiver Program, which allows us to waive interviews for 
applicants in certain low-risk populations--over 1 million applicants 
in 2014--allowing us to focus on higher-risk applicants. We continue to 
work with our partners to determine the feasibility of expanding the 
Visa Waiver Program, the Interview Waiver Program, and reciprocal visa 
validities in support of the President's goal to attract 100 million 
visitors to the United States annually by 2021.
    Foreign Fighters and the Visa Waiver Program (VWP): The protection 
of U.S. borders is of the utmost importance to CA. We collaborate 
closely with DHS to support its mission of protecting the United States 
by promoting effective aviation and border security screening with our 
foreign partners through enhanced information-sharing. To travel 
without a visa under the VWP, an applicant must obtain authorization 
through the Electronic System for Travel Authorization (ESTA) prior to 
boarding a U.S.-bound air or sea carrier. Should standard ESTA 
screening indicate that a traveler might be ineligible, that 
individual's ESTA application is denied, and the traveler is directed 
to the nearest U.S. Embassy or consulate to apply for a visa. In 
November 2014, ESTA enhancements went into effect that allow the U.S. 
Government to more effectively identify travelers who might pose a risk 
to the United States, including foreign fighters.
    Ten-Year Validity for Chinese Visas: The Bureau of Consular Affairs 
was instrumental in negotiating and shepherding the expansion of 
Chinese visa validity, which President Obama announced in November 
2014. Visa demand in Mission China has risen by more than 53 percent in 
the wake of the announcement and the Chinese are issuing visas with the 
same reciprocal validity to U.S. citizens. This has a significant 
impact on travel and tourism in both countries and helps boost people-
to-people engagement. It will be a tremendous boon to U.S. businesses 
and have a significant effect on our economy. From January to May 2015, 
CA issued 1.5 million visas to Chinese travelers.
    Modernized Immigrant Visa: As a global service organization, CA 
must constantly ensure that our processes meet the needs of our 
customers. We are working with DHS, private and nonfederal public 
actors, and technology experts to implement a streamlined, electronic 
immigrant visa process that will save time and money.
Fraud prevention--facilitate travel, maximize security measures
    Fraud prevention and detection are a critical part of our 
operations. As the demand for our services increases, so do efforts by 
criminal elements, or those who think they can catch us off guard. We 
must remain vigilant in our work while still maintaining efficiency. 
New tools and technologies help identify and malafide applicants. One 
of CA's priorities for 2015 is to develop programs and techniques to 
prescreen applicants prior to their interviews. Our global fraud 
tracking database allows us to more efficiently document and analyze 
fraud research. Our fraud prevention and detection efforts are 
successful in part because of increased collaboration across the U.S. 
Government, and access to better information and technology.
CA systems--keeping up with demand in a changing world
    Stable technological systems are a top priority for CA. This is key 
to improving customers' overall experience and managing our workload 
efficiently.
    Systems modernization: The growing demand for our services puts 
unrelenting strain on our aging systems. A systems outage in June 
disrupted service and caused considerable hardship for some customers 
across the globe.
    A June 9 hardware failure halted the flow of biometric data for 
visa application security checks to posts overseas, preventing posts 
from issuing visas and processing new visa applications. The effort to 
switch to the standby system failed due to corrupted data. CA 
collaborated with private sector experts and the White House's U.S. 
Digital Services team and worked around the clock to restore service by 
taking a database with 6-month old data and merging the data from the 
failed production system into the new one. CA then reconnected posts to 
the central biometrics database in a staggered worldwide rollout, 
beginning with our largest nonimmigrant visa and immigrant visa 
processing posts. All visa-issuing posts were reconnected by June 26.
    Taking into account the legal requirements to conduct security 
screening for visa applicants, CA explored every available option to 
facilitate legitimate travel during the outage. We secured strong 
cooperation with DHS/CBP on port of entry (POE) document waiver 
requests for cases with humanitarian or high-level U.S. national 
interest and for more than 250 critically needed temporary agricultural 
workers. We issued more than 3,500 visas for urgent and humanitarian 
travel in cases that did not require fingerprints, including visas for 
adopted children, diplomats on official travel, and some temporary 
workers. After the systems were restored, consular sections overseas 
worked extended hours and through the weekend to rapidly return to 
normal processing times.
    CA is committed to modernizing consular systems to prevent future 
recurrences of these problems. We are migrating our databases to a 
significantly more robust combined hardware and software Oracle Exadata 
platform. We recently installed new servers in Beijing, Guangzhou, and 
Shanghai that can handle up to four times the workload. We will install 
the same servers in our busiest missions over the course of the year.
    ConsularOne: We are in the development phase of ConsularOne, a 
major IT initiative to consolidate all consular applications into one 
integrated system. This will reduce inefficiencies and data 
duplication, improve our ability to track demand, and help us to better 
detect trends and anomalies across all consular services. ConsularOne 
is a key component of online passport renewal, which we plan to 
introduce next year.
CA Budget and Resources--Responsibly Use Public Resources Without 
        Burdening Taxpayers
    If confirmed, I am committed to ensuring we are fiscally 
responsible and shrewd stewards of our funds. CA is funded by consular 
user fees, not by taxpayers. In FY 2014, CA generated $3.6 billion in 
revenue, which supports all consular operations in the Department and 
provides border security-related funding to some interagency partners.
    CA funds: CA is fully fee funded, and collects and retains fees for 
certain visa and passport services pursuant to specific statutory 
authority. We do not collect fees for every service we perform. Under 
current fee statutes, we are allowed to retain approximately 80 percent 
of the fees we collect, with the balance going to the Treasury. 
Currently, CA has 12 Partner Bureaus with programs or positions 
directly supported through retained consular fees. If confirmed, I 
would ask your consideration in enhancing our ability to retain and 
spend the funds generated through consular fees. With added 
flexibilities, we can improve and expand our work to secure the safety 
and security of U.S. citizens abroad.
    Cost of service model: CA's cost of service model uses activity-
based costing methodologies to calculate the true cost of consular 
services, to recommend appropriate fees for services, and to inform 
CA's funding strategies so CA appropriately administers the 
Department's Consular and Border Security Programs (CBSP). Fee 
flexibilities included in the FY 2016 President's Budget Request will 
ensure future efficient and responsible disbursement of CBSP funds that 
is in line with how fees are set. We will also create, implement, and 
institutionalize an authoritative CBSP plan and overarching governance 
process to guide budget planning, execution, and monitoring.
Consular leadership--developing the workforce of the 21st century
    CA is a global operation with a significant footprint. We have a 
workforce of over 13,000 highly trained professionals including Civil 
Service employees, Foreign Service officers, and Locally Employed 
staff, in more than 300 domestic and overseas offices.
    Our colossal and growing workload can only be managed by a first 
rate workforce that leverages cutting-edge technological and management 
tools. I have every confidence in my team and in CA's senior leaders. I 
am committed to fostering the culture of leadership, management, and 
innovation excellence that is a hallmark of the Bureau.
    We run our operations as effectively and efficiently as possible. I 
would like to say that the Bureau of Consular Affairs is a well-oiled 
machine, but we are not machines. We are a compassionate, disciplined, 
and highly trained corps of individuals dedicated to the dual mission 
of protecting U.S. citizens overseas and protecting our Nation's 
borders.
    To build a team of consummate, compassionate professionals and 
prepare the next generation of FSOs, we developed 1CA: one Consular 
Affairs team. 1CA is the Bureau's office of leadership, management, and 
innovation, a proactive effort to promote excellence in an environment 
of budgetary restraint and increasing demand for our services. 1CA 
created a management framework based on private industry leading 
practices but customized for consular professionals. 1CA has introduced 
a practical set of tools and resources that promote collaboration and 
help consular teams identify, prioritize, and resolve management and 
leadership challenges. Through these tools, our consular sections 
across the globe have increased adjudication numbers and reduced 
processing times and customer wait times.
    It is my hope that CA will continue to foster a culture of 
leadership, sound management, and performance principles which exerts a 
broader influence across the Department. CA is proud to be the training 
ground for the next generation of Foreign Service officers. All entry-
level officers serve in Consular Affairs on their first or second 
tours. The capabilities and skills of our diplomats are greatly 
enhanced by the tools they learn during their consular tours.
    1CA has become a model for how the Department approaches the 
development of human capital. Recently, State rolled out the 
Department's Leadership and Management Principles, tracking closely to 
CA's tenets. Our success has inspired the creation of <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88dcede9e5ffe7fae3c8dbfce9fced">[email&#160;protected]</a>, 
the Department-wide initiative that provides toolkits and resources on 
teamwork across bureaus, posts, and offices.
    If confirmed, I will do my utmost to continue to equip my team with 
the tools and resources necessary to fulfill their duties. I will also 
continue to work with the Department to prepare our new diplomats for 
future global challenges.
Relationship with Congress
    The work of Consular Affairs often touches our citizens on a deeply 
personal level. I am committed to ensuring your constituents receive 
the assistance they require from CA in a timely manner and that 
information is presented clearly and transparently. If confirmed, I am 
committed to strengthening the relationship between Congress and the 
Bureau of Consular Affairs. In FY 2014, CA conducted more than 150 
legislative briefings, testified at three hearings, and cohosted the 
annual Immigration and Consular Conference for all congressional staff. 
We conducted domestic agency and border post tours for constituent 
services staffers. We want Congress to be well informed of our issues 
and wish to be available to you for any inquiries you may have. Two 
consular liaison officers have offices on the Hill to respond to 
congressional inquiries, connect you with our subject matter experts, 
and engage on consular matters via webinars, conferences, and 
briefings. We have a dedicated Web site for congressional staff--
travel.state.gov/congress--and dedicated congressional contacts at 
every overseas post, domestic passport agency, the National Visa 
Center, and the Kentucky Consular Center. During overseas crises, we 
establish a dedicated congressional email address for inquiries 
concerning constituents in the affected area.
Whole of government approach
    If confirmed, I hope to amplify the cooperation among agencies, and 
with Congress, to use our resources as efficiently as possible, 
bringing a whole-of-government approach to serving the needs of our 
citizens. I will continue the close collaboration we enjoy with other 
bureaus across the Department and other government agencies to fulfill 
our mission of protecting U.S. citizens abroad and facilitating 
legitimate travel to the United States.
Conclusion
    Mr. Chairman, if confirmed, I will work with the Secretary to 
ensure consular support for America's foreign policy objectives. If 
confirmed, I will continue to keep you informed of our resource needs, 
and work with you to ensure that the Bureau of Consular Affairs 
continues to meet its obligations to our citizens and to our Nation.

    The Chairman. Dr. Mendelson.

        STATEMENT OF DR. SARAH MENDELSON, NOMINATED TO 
 BE U.S. REPRESENTATIVE ON THE ECONOMIC AND SOCIAL COUNCIL OF 
                            THE U.N.

    Dr. Mendelson. Chairman Corker, Ranking Member Cardin, and 
distinguished members, thank you for the opportunity to appear 
before you as President Obama's nominee to be the United States 
Representative to the Economic and Social Council of the United 
Nations. I am grateful to President Obama, Secretary Kerry, and 
Ambassador Power for this opportunity and for their confidence 
in me.
    I would like to acknowledge my husband, John Harvey, who is 
here with me today and whose own career has been defined by 
public service and the safeguarding of U.S. national security 
interests. I depend every day on his love and support.
    I also want to acknowledge my family and friends watching 
from many different parts of the globe. As a first-generation 
American, it is truly an honor and privilege to be here. In my 
office I have a photograph of the shtetl in Lithuania where my 
father was born, which serves as a reminder of how far and how 
fast my family's journey has been.
    Virtually my entire professional career has focused on 
advocating for democracy and human rights internationally. This 
work is not easy, nor does it bring quick results. I keep close 
a copy of the Universal Declaration of Human Rights. In a world 
filled with cynicism, it is an important reminder of the United 
Nations' potential.
    I know firsthand about the United Nations' imperfections. 
While at the Center for Strategic and International Studies, my 
intellectual home for many years, I investigated the 
trafficking of women and girls in and around peacekeeping 
missions in Bosnia and Kosovo. But this work also brought me 
into contact with brave U.N. officers dedicated to advancing 
gender equality and human rights.
    I have seen firsthand that when the United Nations works 
best, we can effectively work with partners to promote our 
interests and values. During the 4 years I served at USAID in 
the Bureau for Democracy, Conflict, and Humanitarian 
Assistance, my colleagues and I responded to multiple Level-3 
humanitarian assistance crises. I was exposed on a daily basis 
to the development, human rights, humanitarian assistance, 
peacebuilding, and democracy promotion challenges confronting 
various U.N. agencies, nearly all of which depend on vital U.S. 
leadership and support.
    My service in government also coincided with the expansion 
of the digital era. From Brazil to Indonesia, from Mexico to 
South Africa, the spread of affordable information and 
communication technologies has helped to expose corruption and 
driven demand for governments to be more transparent and 
accountable to their citizens. Initiatives such as the Open 
Government Partnership, launched by President Obama and seven 
other heads of state at the U.N. in 2011, reflect this growing 
international movement of civic-based activism.
    This digital era has been met also with a backlash, a 
closing of public space around civil society where governments 
are threatened by the increased empowerment of citizens. There 
are many dimensions to closing space including onerous 
requirements on nongovernmental organizations, the targeting of 
journalists, national legal measures targeting the LGBT 
community, the rise of anti-Semitism and targeting of religious 
minorities, and the murder of activists dedicated to exposing 
abuse.
    I know from my travels around Africa, Asia, Europe, 
Eurasia, and Latin America just how much members of vulnerable 
and marginalized populations look to the United States and the 
United Nations for leadership and pushing back on such 
repression. If confirmed, I pledge to work with U.N. agencies 
and like-minded member states to mobilize support for and 
address this issue and give voice to those who have been 
silenced.
    If confirmed, I will also continue the work I began over 15 
years ago on human trafficking, elevating the need to combat 
modern slavery as a vital 21st century development challenge. 
The global movement has made great strides, yet as this 
committee has recognized under the chairman's leadership, there 
is more work to be done to strengthen international efforts to 
address human trafficking. The U.S. role, as this committee has 
also noted, is critical. The United Nations has an important 
role to play as a platform to expand and broaden constituencies 
engaged in ending slavery.
    If confirmed, I will work with the leadership of U.N. 
agencies in New York to combat human trafficking, and support 
smart investments that lead to sound development outcomes and 
elevate the focus on women and girls. I will work with 
colleagues across the U.N. system to deliver assistance to 
those experiencing food insecurity and displacement, and join 
others in the quest for greater resilience in the face of 
disaster.
    As the world finalizes its commitments for the Post-2015 
Development Agenda, I will work with the leadership of U.N. 
agencies, funds, programs, and member states for meaningful 
implementation of the goals. We must never forget that 
inclusion, sound governance, sustainable environmental 
practices, and respect for human rights are the essential 
foundations for achieving and sustaining development.
    And finally, across the full spectrum of the issues and 
activities in my portfolio, I will contribute actively to this 
administration's fight against the disproportionate bias that 
remains persistent in the U.N. system targeting Israel.
    If confirmed, I would be honored to join the 
administration's commitment and efforts to make the United 
Nations live up to its potential and further American values 
and ideals. Working with this committee and others in the 
administration, I would do my utmost to help the U.N. address 
humanitarian challenges and meet opportunities to make the 
world more secure.
    Thank you. I look forward to answering your questions.
    [The prepared statement of Dr. Mendelson follows:]

                Prepared Statement of Sarah E. Mendelson

    Chairman Corker, Ranking Member Cardin, distinguished members, 
thank you for the opportunity to appear before you as President Obama's 
nominee to be the United States Representative to the Economic and 
Social Council of the United Nations. I am grateful to President Obama, 
Secretary Kerry, and Ambassador Power for this opportunity and for 
their confidence in me.
    I would like to acknowledge my husband, John Harvey, who is here 
with me today, and whose career has been defined by public service and 
the safeguarding of U.S. national security interests. I depend every 
day on his love and support. I also want to acknowledge my family and 
friends watching from many different parts of the globe. As a first 
generation American, it is truly an honor and privledge to be here. In 
my office, I have a photograph of the shtetl in Lithuania where my 
father was born, which serves as a reminder of how far and fast my 
family's journey has been.
    Virtually my entire professional career has focused on advocating 
for democracy and human rights internationally. This work is not easy, 
and nor does it bring quick results. I keep close a copy of the 
Universal Declaration of Human Rights. In a world filled with cynicism, 
it is an important reminder of the United Nations' potential. I know 
first-hand about the U.N.'s imperfections: while at the Center for 
Strategic and International Studies, my intellectual home of many 
years, I investigated the trafficking of women and girls in and around 
peacekeeping missions in Bosnia and Kosovo. But this work also brought 
me into contact with brave U.N. officers dedicated to advancing gender 
equality and human rights.
    I have seen firsthand that when the United Nations works best, we 
can effectively work with partners to promote our interests and values. 
During the 4 years I served at USAID in the Bureau for Democracy, 
Conflict, and Humanitarian Assistance, my colleagues and I responded to 
multiple Level-3 humanitarian crises. I was exposed on a daily basis to 
the development, human rights, humanitarian assistance, peace-building, 
and democracy promotion challenges confronting various U.N. agencies, 
nearly all of which depend on vital U.S. leadership and support.
    My service in government also coincided with the expansion of the 
digital era. From Brazil to Indonesia, from Mexico to South Africa, the 
spread of affordable information and communication technologies has 
helped to expose corruption and driven demand for governments to be 
more transparent and accountable to their citizens. Initiatives such as 
the Open Government Partnership, launched by President Obama and seven 
other heads of state at the U.N. in 2011, reflect this growing 
international movement of civic-based activism.
    This digital era has been met with a backlash, a closing of public 
space around civil society where governments are threatened by the 
increased empowerment of citizens. There are many dimensions to closing 
space including onerous requirements on nongovernmental organizations, 
the targeting of journalists, national legal measures targeting the 
LGBT community, the rise of anti-Semitism and targeting of religious 
minorities, and the murder of activists dedicated to exposing abuse. 
President Obama addressed government restrictions on civil society 
during the high-level week at the U.N. General Assembly in 2013 and 
2014. The U.N. Human Rights Council adopted resolutions on the issue in 
2013 and 2014. I know from my travels around Africa, Asia, Europe, 
Eurasia, and Latin America just how much members of vulnerable and 
marginalized populations look to the United States and the United 
Nations for leadership in pushing back on such repression. If 
confirmed, I pledge to work with U.N. agencies and like-minded member 
states to mobilize support for and address this issue and give voice to 
those who have been silenced.
    If confirmed, I will also continue the work I began over 15 years 
ago on human trafficking, elevating the need to combat modern slavery 
as a vital 21st century development challenge. The global movement has 
made great strides, yet as this committee has recognized under the 
chairman's leadership, there is more work to be done to strengthen 
international efforts to address human trafficking. The U.S. role, as 
this committee has also noted, is critical. The U.N. has an important 
role to play as a platform to expand and broaden constituencies engaged 
in ending slavery.
    If confirmed, I will work with the leadership of U.N. agencies in 
New York to combat human trafficking, and support smart investments 
that lead to sound development outcomes and elevate the focus on women 
and girls. I will work with colleagues across the U.N. system to 
deliver assistance to those experiencing food insecurity and 
displacement, and join others in the quest for greater resilience in 
the face of disaster. As the world finalizes its commitments for the 
Post-2015 Development Agenda, I will work with the leadership of U.N. 
agencies, funds, programs, and member states for meaningful 
implementation of the goals. We must never forget that inclusion, sound 
governance, sustainable environmental practices, and respect for human 
rights are the essential foundations for achieving and sustaining 
development.
    And, finally, across the full spectrum of the issues and activities 
in my portfolio, I will contribute actively to this administration's 
fight against the disproportionate bias that remains persistent in the 
U.N.-system targeting Israel.
    If confirmed, I would be honored to join the administration's 
commitment and efforts to make the United Nations live up to its 
potential and further American values and ideals. Working with this 
committee, and others in the administration, I would do my utmost to 
help the U.N. address humanitarian challenges and meet opportunities to 
make the world more secure.
    Thank you. I look forward to answering your questions.

    The Chairman. Thank you both very much.
    We will now have 5 minutes of questioning by each of the 
Senators who wish to do so.
    Ambassador Bond, a number of American families adopting 
Congolese children are stuck in the DRC exit permit suspension. 
I know you are very aware of that. Yesterday there was an 
announcement where numbers of cases were going to be approved. 
They are waiting on authorization by President Kabila, I guess, 
at this moment.
    Can you tell us a little bit about what you think the best 
strategy will be for you to deal with this issue with the DRC 
and getting adopted children out of the country?
    Ms. Bond. Thank you for that question, Senator. As you may 
know, I visited Kinshasa in March and had an opportunity to 
meet with several of the waiting families who have actually 
moved to the DRC in order to live with their children while 
they wait for action by those officials. But there are hundreds 
of other families who are not able to do that and who are 
waiting in the United States to be able to bring their children 
home.
    While I was in Kinshasa, I met with a Member of their 
Parliament and with a number of senior officials in the 
government to press them to take action now on these cases, and 
I emphasized to them the fact that it is not a matter of 
indifference. Every single day that passes is a cost, a real 
cost, and in some ways an irreparable one, to the children who 
are losing ground because they are not in the families that are 
waiting for them, who have adopted them and would give them the 
kind of love and support that every child needs.
    As you say, there was a meeting yesterday between U.S. 
Embassy officials and the head of the DRC Adoption Inter-
Ministerial Commission, and a member of the Ministry of Foreign 
Affairs was also there. They reported that the Commission has 
approved a number of cases of children adopted by citizens of 
the United States, and also families from Canada, France, 
Italy, and the Netherlands. They say that those have been 
reviewed by the Commission and passed to President Kabila for 
his action.
    They suggested that a decision could come as early as next 
week, and we are pressing that administration hard to make a 
decision on these children, the first tranche, but on every 
single case to get those kids home to their families.
    It has been suggested by one of the members of the 
Commission that they believe that having succeeded in creating 
this first tranche and moving those names and files to the 
President, that they will be able to move more quickly on 
subsequent cases. They have established their process now, and 
I hope that is true, but we are indeed going to be pushing them 
to recognize that this is an urgent matter. This is something 
that needs to be done in a matter of hours or days, not weeks 
and months.
    The Chairman. Thank you.
    Dr. Mendelson, can you tell us a little bit about ECOSOC's 
role in combating slavery and talk to us a little bit about how 
you plan to pursue this issue when confirmed?
    Dr. Mendelson. Thank you, Senator, and thank you for your 
leadership on combating trafficking. It is widely appreciated, 
and that of the committee.
    ECOSOC is a broad portfolio. Trafficking is a global 
problem. We need a global platform to address it, and I think 
ECOSOC presents an excellent opportunity.
    Very specifically, we need, as you have widely recognized, 
we need every Ambassador to be engaging on this issue. We need 
every mission to be thinking about this and being champions for 
this. The SDG process, the Sustainable Development Goals 
process, actually provides an opportunity. There is a lot of 
language particularly focused around ending the trafficking of 
minors, and I have seen how when countries commit to the goals, 
assistance follows. It is my expectation that, and I would be a 
champion if confirmed, to make sure that those commitments 
include a focus on combating child trafficking and raising this 
issue, using the convening power to bring missions together and 
leadership.
    The Chairman. Are there some specific countries that you 
think would be best for us to work with? Name some of them. I 
know you cannot name all of them, but obviously we want to put 
together a global effort. Hopefully we have the beginning 
stages of that now. But what are some of the other countries 
around the world that you think care deeply about this issue 
which would be great partners for the United States?
    Dr. Mendelson. We have very close relations with the United 
Kingdom, with many Nordic countries. Surprisingly, those 
development agencies are not already committed to combating 
trafficking. In my travels in my job at USAID, I met with 
foreign officials many times urging that this be a focus, and 
there was some resistance. So I think there is work to be done. 
I think this platform will be, if confirmed, a wonderful 
opportunity to work with missions again through the commitment 
that is involved with the Sustainable Development Goals.
    I think you are going to find that countries are going to 
turn to say, yes, we are going to commit to this, and it will 
come on to their radar, come on to their agenda. So Sweden, 
with whom we have very close cooperation, would be a target, 
other Scandinavian countries, and certainly the United Kingdom.
    The Chairman. Thank you both.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Again, I thank both of you for your service.
    Dr. Mendelson, you mentioned the vital U.S. leadership and 
support. That was particularly true in the Trafficking in 
Persons, the TIP report, the gold standard. I look at that 
foreign beat with guests from other countries to see how they 
are doing, and the United States has really provided, I think, 
the international leadership to make a huge difference in 
trafficking.
    I want to see us do the same thing on corruption. I was 
proud that in the State Department reauthorization that this 
committee took up, we started to take steps to require the 
State Department to analyze the status of corruption in 
countries around the world.
    So I want to focus on the Millennium Development Goals just 
for one moment. If I had Ambassador Bond's husband, spouse 
here, I think he would tell us the problems in Ukraine was not 
so much the relationship with Russia and the European Union, it 
was more about corruption. After the revolution, people were 
very optimistic, but then they got a corrupt government, and 
that caused many of the problems. If we look at the deep 
problems in Russia today, the motivation there is more 
corruption than anything else, and I could go through so many 
other countries around the world.
    So we have a chance with the Millennium Development Goals, 
and there is a commitment to deal with human rights and 
corruption, but it seems buried. So I would like to get your 
commitment to be a fighter on this issue. You have a great 
tradition on human rights. This is our opportunity.
    So, are you going to be a fighter to make sure that we have 
this as a visible goal under the Millennium Development to make 
sure that we can make some progress internationally on this 
corrosive human rights issue?
    Dr. Mendelson. Thank you, Senator, for the focus on 
corruption. I very much share your sense of urgency on this 
issue. I think it is one that the human rights community in 
general is gradually beginning to spend more attention to. I 
note also that there is a large transparency and accountability 
community that does not always talk to the human rights 
community. You mentioned Ukraine and, of course, the Dignity 
Revolution. The Euromaidan was about precisely demanding 
transparency and accountability, and I think that there are 
very brave people today who are still working on these issues.
    I promise you that in Sustainable Development Goal number 
16, that has good governance, sound governance and 
anticorruption in it, it will be an enormous priority. It is 
something that I spoke to Ambassador Power about when we were 
talking about this possibility, and I know she shares the 
commitment. So, yes, I promise.
    Senator Cardin. How about getting in the top five rather 
than number 16? I hope that you will work for that.
    Ambassador Bond, people who want to come to the United 
States, spend money, learn about our way, advance U.S. goals 
which are basically global values, we make it so tough. It 
costs a lot of money. It takes a lot of time. What vision do 
you have to make it easier for people who want to visit the 
United States to be able to get through the bureaucratic 
process of obtaining a visa?
    Ms. Bond. Thank you, Senator. What a good question, because 
that is one of our primary goals too. We have to screen 
visitors who are applying to come to the United States because 
we need to know who they are before we can give them permission 
to come. However, we also want to do everything we can to 
facilitate legitimate travel. We want to bring those travelers 
to the United States, and we want to encourage them to come 
back again and again.
    So one of the things that we do is we try to make sure, and 
we have invested significant resources--people, training, real 
estate--into making sure that if someone notifies us that he is 
interested in getting a visa to the United States, we interview 
that person as quickly as possible at a date that is convenient 
for them.
    As you may know, in November, President Obama and the 
President of China jointly announced that they were going to 
extend the validity of visas for tourists and business 
travelers from 1 year to 10. And since then, just in the months 
since November, we have seen a 53-percent increase in the 
number of new applications for visas to come to the United 
States. Millions of people are traveling to the United States, 
and because they will have a 10-year visa, they can plan ahead. 
They can say, hey, next year is our anniversary, and let's plan 
to go to San Francisco. Next year is whatever, 5 years from now 
is whatever.
    So we are doing everything we can to encourage travelers 
who have been vetted and examined so that we know that they are 
not a risk to the United States. We want them to come and we 
want them to see as much of the country as they can and spend 
their money.
    Senator Cardin. Also take a look at your computer system. 
It has broken down many times. You need to have a more reliable 
way to be able to handle this. If it is not working, a person 
may have traveled overnight to get to one of our locations only 
to find they have to come back another day. It just makes no 
sense, and we have to provide better service.
    I want to do the screening--we have to do that--but we 
could do it in a more friendly way, and I would just urge you 
to make that the highest priority.
    Last point, Mr. Chairman, just to comment.
    Thank you for mentioning your commitment for Israel. There 
is no question that there is only one country that will stand 
up to the discriminatory actions that the international 
community in this international organization has focused on 
Israel, and the United States must remain firm against those 
discriminatory actions taken in the international community. 
So, thank you very much for mentioning that today.
    The Chairman. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman, and thank you 
very much for calling this hearing today. I know U.N. 
Ambassador Power is very interested in Dr. Mendelson getting to 
New York as fast as she can, particularly with the U.N. session 
beginning this summer, so I hope we can move this forward, and 
I appreciate very much your willingness to call it.
    I want to follow up on what Senator Cardin said, Dr. 
Mendelson. Your statement says, ``I will contribute actively to 
this administration's fight against the disproportionate bias 
that remains persistent in the U.N. system targeting Israel,'' 
and I want to thank you for including it both in your printed 
remarks as well as your verbal remarks today, because there are 
significant biases against Israel in the U.N. If we do not 
stand strong with our partner Israel, we could have some big 
problems.
    In particular, I think it is U.S. policy, at least my 
recollection is it is our stated policy of this administration 
that any recognition of a Palestinian state should be 
negotiated between the State of Israel and the State of 
Palestine, not determined by a third party. Is that correct?
    Dr. Mendelson. Thank you, Senator, for raising this issue. 
It is, again, a key issue that Ambassador Power and I discussed 
when this opportunity arose.
    You are correct, and I will fight vigorously to oppose any 
possibility that erodes a two-state solution. I will fight for 
the inclusion of Israel in various fora and to normalize 
Israel's status at the United Nations. I will fight tirelessly 
to oppose the bias that you see across the system, including in 
one-sided biased resolutions.
    Senator Isakson. Well, thank you very much for that 
commitment, because it is absolutely necessary. I know Samantha 
Power, Ambassador Power, feels exactly the same way.
    Ms. Bond, you are going to be in charge of all passports. 
Is that right?
    Ms. Bond. Yes, sir.
    Senator Isakson. I have a question for you. Every time I 
turn on the television or read anything about ISIL and about 
lone wolves, I read about Americans going to Syria for training 
with ISIL or going into Iraq for training with ISIL. What is 
the State Department doing and what role can the State 
Department have through passports, visas, and the like to track 
people who are doing that, or to curtail the access to be able 
to do that for American citizens going to that part of the 
world for that purpose?
    Ms. Bond. Sir, you have raised a very serious concern. We 
recognize fundamentally the right of U.S. citizens to travel 
and the importance of citizens who are interested in traveling 
abroad to be able to apply for a passport and get one quickly 
and efficiently.
    At the same time, we also are carefully vetting every 
application for a U.S. passport for us to make sure that that 
person qualifies, is that person a U.S. citizen, and there are 
screens in place. We work very closely with law enforcement, 
with the intel community, in order to be able to identify 
travelers who may be planning to travel for illegal purposes, 
travel for terrorism purposes.
    So there is a lot of coordination within the government to 
track known or suspected terrorists, and whether they are 
foreigners applying for visas or Americans who are traveling 
abroad on passports to make sure that we try to identify those 
people and try to interdict their travel if we can.
    Senator Isakson. I hope you are successful at accomplishing 
exactly that, because it is a worrisome fact that as many 
Americans as are expected or that we anticipate are trying to 
find their way to Syria or to ISIL to be trained and come back 
to be a threat to this country. So your role in that will be 
critically important to our country's security, and I wish you 
the best of luck in your future endeavors as far as Assistant 
Secretary of State, as I do with Dr. Mendelson at the U.N.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Look, I cannot imagine having two more highly qualified 
people for these positions, and we thank you both for your 
willingness to serve in this capacity and your commitment to 
the kinds of issues you are going to be dealing with for a very 
long time.
    So, thank you for being here and having your families here. 
We will make this as painless as possible, getting ready to 
adjourn, and we hope other members will ask questions. We hope 
that those questions will be in by noon Monday, and then you 
would respond promptly to those.
    But we thank you for being here. Again, we thank you for 
your commitment to these issues, to our country, and your 
willingness to serve in this capacity.
    Senator Cardin. Thank you.
    The Chairman. The meeting is adjourned.
    [Whereupon, at 10:45 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


 Responses of Dr. Sarah Mendelson, Nominated to be U.S. Representative 
 on the U.N. Economic and Social Council, to Questions from Members of 
                             the Committee

            representative-designate mendelson's responses 
                    to questions from senator corker
    Question. Given the multitude of Sustainable Development Goals 
(SDGs), which ones should the United States prioritize?

    Answer. From the outset of the process, the U.S. Government has 
prioritized a universal Post-2015 Development Agenda to ensure it can 
drive real impact and results on the ground. The United States is 
supportive of the draft Sustainable Development Goals (SDGs) because 
they address a range of issues that were left out of the Millennium 
Development Goals yet which are critical drivers of development such as 
the role of sound governance. The United States also recognizes that 
this more robust understanding of development means having a larger set 
of goals and targets to work toward. The 17 goals and 169 targets 
articulated in the current draft SDGs document include U.S. Government 
priorities--such as the unfinished business of the MDGS; gender 
equality and the empowerment of women and girls; sustainable energy; 
oceans and natural resources; inclusive and sustainable economic 
growth; governance and peaceful societies. The Department has 
prioritized 13 areas for the Post-2015 Agenda: including Goal 16 on 
peace and governance but also poverty, food security, health, 
education, gender equality and the empowerment of women and girls, 
economic growth, water, energy, natural resources, oceans, and global 
partnerships.

    Question. How will the SDGs affect the way the United States 
approaches international development?

    Answer. Policy decisions, priorities, and budgets of the United 
States will always be made by the United States. The SDGs offer global 
targets to help guide national development priorities while leaving 
individual countries the space to determine their own policies about 
how to meet those priorities. The draft SDGs and targets reflect issues 
that have long been components of U.S. foreign assistance, including 
combating human trafficking and modern slavery, fighting poverty and 
hunger, promoting education and gender equality, improving access to 
safe water and affordable and reliable energy, and support for 
transparent, responsive and accountable democratic institutions. As the 
agenda has not yet been adopted, it is too early to say how the final 
agreement will impact U.S. priorities and policies, and the allocation 
of U.S. resources.

    Question. What is ECOSOC's role in the post-2015 Millennium 
Development Goals (MDGs) development agenda and how will the Council 
contribute to the implementation of the Sustainable Development Goals 
(SDGs)?

    Answer. The Millennium Development Goals were introduced in 2000 
and span a 15-year period that concludes this year. The Post-2015 
Development Agenda, including the Sustainable Development Goals, are 
currently being negotiated through an intergovernmental process under 
the auspices of the General Assembly. The importance of a robust 
followup and review framework is one of the key lessons learned from 
the experience with the MDGs, and as the U.N. organ mandated to conduct 
followup and review of conferences and summits relating to development, 
economic, social, and environmental issues, ECOSOC will play a key role 
in monitoring implementation of the SDGs. Analysis of specific areas of 
the SDGs will occur throughout the year in ECOSOC's functional 
commissions and subsidiary bodies (e.g., Commission on the Status of 
Women or the U.N. Forum on Forests). ECOSOC will also conduct an annual 
review of the SDGs at the High Level Political Forum (except every 4 
years when the High Level Political Forum will meet under the auspices 
of the General Assembly).

    Question. What were the biggest hurdles to the implementation of 
the Millennium Development Goals and what lessons can be learned as the 
U.N. transitions to the Sustainable Development Goals?

    Answer. In addition to being a powerful symbol of a global 
commitment to eradicating extreme poverty, hunger, and disease, the 
MDGs served as a motivating 
set of goals to drive common action and have helped reap remarkable 
progress for global development. Even when particular MDG targets were 
not met, such shortcomings served to catalyze additional global action. 
For example, on child survival, the 2012 Child Survival Call to Action, 
which resulted in a new pledge to end deaths of children under 5 by 
2035, stemmed from a recognition that MDG 4 (reducing child mortality) 
would not be reached by 2015.
    It is worth noting that overall, since 1990, extreme poverty has 
been cut by more than half with nearly 900 million people rising above 
the $1.25-a-day line. Per capita incomes in the developing world more 
than doubled. A child born today is twice as likely to survive into 
adolescence as in 1990; malnutrition has been cut by 40 percent; youth 
literacy has been cut by 39 percent, and lack of access to modern 
energy services has fallen by a third.
    The Millennium Development Goals helped advance the U.S. 
development agenda in a number of key areas. The MDGs helped pull 
people out of extreme poverty, especially those who were just below the 
extreme poverty line, but often not the most marginalized and extreme 
poor. In the follow-on effort, the United States will be working to 
incorporate additional areas considered key to the U.S. development 
agenda, including a focus on sound governance, institutions and peace, 
particularly in fragile and post-conflict states, in generating 
sustainable development, and on gender and environmental issues. One 
criticism of the MDGs was that they were too narrowly defined in that 
they did not take into account development writ large. In some cases, 
this led to siloed approaches rather than a more holistic, integrated 
approach. In the Post-2015 development agenda, the United States will 
work to ensure that issues that cut across multiple areas of focus, 
such as health, gender, transparency and accountability, and education, 
are addressed in an integrated manner.

    Question. If confirmed, what will be your role in determining the 
success of 
the SDGs and more specifically, how do you think they should be 
measured and evaluated?

    Answer. The United States is closely engaged in the efforts of the 
U.N. Statistical Commission to develop a comprehensive multilateral 
framework to measure, evaluate, followup, and review progress on the 
SDGs. The U.S Government supports an indicator and monitoring framework 
that is science-based, with an elevated focus on data. It should also 
be practical and achievable; one that enables evidence-based 
decisionmaking in support of the agenda at all levels. Because 
implementing the SDGs will mean different things in different contexts, 
the monitoring and evaluation framework needs to be flexible rather 
than overly prescriptive, focused on outcomes, and one that 
accommodates different structures and challenges. Reporting and 
evaluation of progress should occur at the national, regional, and 
global levels, and it should be a collaborative effort between the 
U.N., its member states, and various subnational public and private 
actors, including nongovernmental organizations. The objective of 
follow up and review is to support decisionmakers, inform policy 
choices, and mobilize partnerships for implementation, thereby 
supporting the successful implementation of the goals.
    The administration hopes to build on and improve its experience 
with the MDGs regarding followup and review, including by 
disaggregating data appropriately according to key demographic 
variables including sex, age, and disability status, and sharing data 
in an open, dynamic, real-time manner to maximize its relevance and the 
decisionmakers' ability to act on it. Increased availability and more 
effective use of data to monitor and drive sustainable development in 
real time, including on issues that have not previously benefited from 
an elevated focus on data such as sound governance or combating human 
trafficking, have the potential to be the game-changing innovation of 
the next decade. If confirmed, I would actively participate in how 
implementation and evaluation decisions are shaped and contribute to 
decisionmaking about how to measure the success of the SDGs.

    Question. ECOSOC Resolution 2008/33, ``Strengthening coordination 
of the United Nations and other efforts in fighting trafficking in 
persons'' urged ``. . . all States, individually and through 
international cooperation, as well as the United Nations system, to 
increase, in a coherent, comprehensive and coordinated manner, efforts 
to counter trafficking in persons.''

  <diamond> Given that ECOSOC is on record with regard to combating 
        human trafficking, what specific followup has ECOSOC taken with 
        regard to this resolution and what additional steps can ECOSOC 
        take to address human trafficking?

    Answer. Thank you for the question, Senator. As you point out, the 
Economic and Social Council has been active on the issue of combating 
human trafficking and, if confirmed, I will continue that effort as I 
recognize we all have a long way to go in addressing this critical 
human rights issue. In 2006, the United Nations General Assembly set up 
an Inter-Agency Coordination Group against Trafficking in Persons 
(``ICAT''), comprising 17 U.N. agencies and related organizations, with 
ECOSOC coordinating on this issue within the U.N. system. The ICAT 
includes agencies such as the International Organization for Migration 
(IOM), the International Labor Organization (ILO), UNICEF, the U.N. 
Office of the High Commissioner for Human Rights (OHCHR), and the U.N. 
High Commissioner for Refugees (UNHCR).
    Attention to trafficking issues through the ICAT and at ECOSOC, its 
subsidiary bodies, and other U.N. organizations has provided a useful 
way to highlight best practices in addressing trafficking in persons. 
For example, earlier this year, the United States and other delegations 
cosponsored a panel discussion with the ILO on forced labor, the 
vulnerability of workers to exploitation, and the impact on national 
and global development.
    Numerous other initiatives to counter trafficking in persons have 
occurred throughout the U.N. system. If confirmed, I will continue this 
sustained engagement, using the platform of the USUN mission to elevate 
the issue and highlight the need for additional action to combat 
trafficking. I appreciate very much the efforts of this committee to 
address the problem of human trafficking and modern slavery and, if 
confirmed, look forward to working closely with you to achieve impact 
on this important issue.

                               __________


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Laura Farnsworth Dogu, of Texas, to be Ambassador to the 
        Republic of Nicaragua
Hon. Roberta S. Jacobson, of Maryland, to be Ambassador to the 
        United Mexican States
Perry L. Holloway, of South Carolina, to be Ambassador to the 
        Cooperative Republic of Guyana
Peter F. Mulrean, of Massachusetts, to be Ambassador to the 
        Republic of Haiti
                              ----------                              

    The committee met, pursuant to notice, at 3:52 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
presiding.
    Present: Senators Rubio, Flake, and Menendez.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The hearing today is to consider the U.S. 
Ambassador nominees to Guyana, Nicaragua, Mexico, and Haiti. 
All of these countries face different challenges, and I look 
forward to discussing them with our nominees today.
    I want to thank all of our nominees for their dedication to 
public service, and welcome their families and friends who are 
present here today.
    In a moment, I will recognize Ranking Member Boxer upon her 
return for opening remarks. The Senate is currently in the 
middle of a series of votes, and in a moment, I want to address 
that with each of you. But she will be here in a moment.
    Our nominees are Mr. Perry Lee Holloway. He is the nominee 
to Guyana. He is a career member of the Senior Foreign Service 
who most recently served as political military counsel to the 
U.S. Embassy in Kabul, Afghanistan.
    Ms. Laura Farnsworth Dogu is the nominee to Nicaragua. She 
is a career member of the Senior Foreign Service and currently 
serves as the deputy chief of mission at the U.S. Embassy in 
Mexico City.
    Ms. Roberta Jacobson is the nominee to Mexico, and she is 
also a career member of the Senior Foreign Service and is 
currently the Assistant Secretary of State for Western 
Hemisphere.
    I would add that I am sorry to hear about your son's recent 
accident, but we pray that he will have a speedy recovery, and 
we know it has been a difficult few days for you.
    And Mr. Peter Mulrean is the nominee to Haiti, and he is 
also a career member of the Senior Foreign Service and 
currently serves as deputy chief of mission of the U.S. mission 
to the United Nations in Geneva.
    Let me just say at the outset, I was hoping we might just 
dispense today with opening statements, unless any of you feel 
passionately about making them. They are written and in the 
record. The problem is that at 5 o'clock, there is an all-
members meeting on the Authorization for Use of Military Force, 
so we will have to stop this hearing in less than about an hour 
and 5 minutes. And with votes going on, we are going to have 
members coming in and out.
    So unless any of you feel passionately about the need to 
read your opening statements in the record, they have been duly 
noted, and I will just begin with questions.
    I will start with Ms. Jacobson.
    Mexico, as I know you believe and understand, is an 
important friend and ally in dealing with a wide range of 
bilateral and hemispheric issues. We share close cultural and 
economic and security ties with them. And that is why I think 
all Americans are very concerned about the events of this past 
week.
    On Saturday, their most notorious drug lord, Joaquin ``El 
Chapo'' Guzman broke out of a high-security prison on Saturday 
night for the second time, escaping in a tunnel built right 
under his cell despite, according to press reports, the Mexican 
authorities having been warned by the DEA as early as 2014 
about his escape plans. So given this and given El Chapo's 
history of escape, his reported limitless resources, and the 
known corruption within the justice system and parts of Mexico, 
are you aware if the Department of Justice formally submitted 
an extradition request to the Department of State for El Chapo 
Guzman?
    Ms. Jacobson. Thank you, Mr. Chairman.
    And thank you for your good wishes on my son. I greatly 
appreciate that.
    We are incredibly frustrated and disappointed by the escape 
of Chapo Guzman. We obviously, along with the Mexican 
Government, will work in support of the Mexican Government to 
recapture him as quickly as possible.
    What I can say is that obviously we are always interested 
in the extradition of criminal suspects in other countries who 
face charges in the United States. And there were pending 
charges against Joaquin ``El Chapo'' Guzman in the United 
States. And further detail, I cannot get into in terms of 
pending or possible extradition matters. Those are matters that 
the Justice Department would have to respond to that. But we 
can say that we are always interested in the extradition of 
those who face multiple serious crimes in the United States.
    Senator Rubio. Let me switch to another topic. According to 
the International Christian Concern and Christian Solidarity 
Worldwide, religious intolerance frequently characterized by 
violence and forced displacement are common in the states of 
Oaxaca, Guerrero, Puebla, Hidalgo, and Chiapas. These religious 
freedom groups have pointed out that state government officials 
tasked with dealing with these kinds of issues and cases often 
have little or no training in human rights or religious 
freedom, leading to the proliferation of these types of abuses 
in violation of Mexico's Constitution.
    So, if confirmed, will you prioritize the issue of 
religious freedom and tolerance in Mexico? And what approach 
will you take to engage the Mexican Government on the state and 
federal levels to support efforts to train government officials 
on religious freedom and other basic human rights and upholding 
the rule of law?

       STATEMENT OF ROBERTA S. JACOBSON, NOMINATED TO BE 
            AMBASSADOR TO THE UNITED MEXICAN STATES

    Ms. Jacobson. Thank you, Mr. Chairman.
    Certainly, I would make that a priority, as I think it is 
one for this administration. I do think that we appreciated 
your staff bringing these cases to our attention. The Embassy 
has already raised these issues at the federal and state level, 
and I would, certainly, prioritize continuing to do so with the 
Mexican Government as well as with civil society organizations.
    Senator Rubio. Before I pivot to one of the other nominees, 
I wanted to briefly discuss your existing record of service to 
our country by examining for a moment the Venezuela Defense of 
Human Rights and Civil Society Act of 2014, which imposed 
targeted sanctions on persons responsible for the violation of 
human rights of antigovernment protesters in Venezuela. As you 
know, the President eventually signed this bill into law.
    Could you tell us a little bit about your role in the 
administration's decisionmaking about the implementation of 
this legislation, specifically, which individuals would be 
sanctioned, et cetera? What role did you play in that process?
    Ms. Jacobson. In the process of developing the names that 
would be sanctioned under that law, and remember we are talking 
about two kinds of sanctions, as you well know, of course, both 
visa sanctions and financial sanctions, visa sanctions, we had 
already at the time of the passage of the law and subsequently, 
we have sanctioned a total of, I believe, 62 Venezuelan 
individuals. And those names were generated by a combination of 
various offices within the interagency community as well as our 
Embassy in Caracas.
    The same process is used for the list that is developed for 
financial sanctions, working, in particular, with the Treasury 
Department as well as other entities of the U.S. Government. 
And as those names are developed, the Assistant Secretary is 
not in the position of actually reviewing and saying particular 
names should go on or off, but a list is presented after the 
interagency has come up with the most information they can on 
candidates.
    So I did see the list of names once it had been developed 
by the interagency community.
    Senator Rubio. In specifics, Diosdado Cabello, who is the 
president of the National Assembly of Venezuela, and perhaps 
the most corrupt individual in Venezuela, which is a very high 
mark, was not included in that list.
    Is there any insight you can provide as to why he was not 
included?
    Ms. Jacobson. I really cannot. I know that there is a 
standard of information that is reviewed, and whether someone 
is on the list or not on the list depends on the kind of 
information that various agencies may have. So I cannot say why 
his name would or would not be on the list when that list would 
come to me or others to approve it.
    Senator Rubio. Thank you.
    [The prepared statement of Ms. Jacobson follows:]


               Prepared Statement of Roberta S. Jacobson

    Mr. Chairman, Ranking Member Boxer, and members of the committee, 
it is a great honor and privilege to appear before you today as 
President Obama's nominee to serve as the next United States Ambassador 
to Mexico. I am deeply appreciative of the confidence the President and 
Secretary Kerry have placed in me by my nomination. I am also very 
grateful for the support of my family, beginning with my husband, 
Jonathan, and our sons, Gil and Daniel.
    I have spent my entire 30-year career with the Department of State 
working on the relationship between the United States and the Americas/
Western Hemisphere. As Director of the Office of Mexican Affairs for 
nearly 5 years, I became acutely aware of Mexico's gravitational pull 
on the gamut of U.S. interests in Latin America.
    That relationship is unique in its enormous breadth and complexity 
and in its direct impact on the security, prosperity, and well-being of 
U.S. citizens every day. All evidence points to an even more 
interdependent future for our two countries. Almost $1.5 billion in 
trade crosses the U.S.-Mexico border each day, supporting millions of 
U.S. jobs. Hundreds of thousands of people cross our nearly 2,000-mile 
long border legally each day and Mexico is, by far, the top foreign 
destination for American travelers. Fully 10 percent of all Americans--
more than 33 million--are of Mexican heritage. The Mexican-American 
community is a vital part of our culture, our politics, and our values.
    I led the team that worked closely with you in Congress to develop 
the U.S. proposal for the Merida Initiative, negotiated with Cabinet-
level Mexican counterparts, and supervised the delivery of U.S. 
training and equipment over a 4-year period that gave Mexico an equity 
partnership in supporting our mutual security needs. We now have an 
unprecedented level of cooperation that is a model for security 
partnerships everywhere. In my 4 years as Assistant Secretary of State 
for Western Hemisphere Affairs, I have remained deeply engaged in all 
aspects of our complex ties with Mexico and I am deeply honored that 
the President has nominated me to serve as Ambassador to Mexico.
    If I am confirmed, I will continue to lead our team in further 
nurturing U.S. interests in Mexico. And while every nominee looks 
forward to working with, and seeking the advice and counsel of, this 
committee and the Congress, Mexico is a special case: This body enjoys 
its own wealth of experience on Mexico, and I intend to mine that 
wisdom to advance U.S. interests in all aspects of our relationship. My 
Job One, of course, is to secure and protect our mission personnel and 
their families as they serve our country in Mexico.
    If confirmed as Ambassador, I will continue this administration's 
focus on a number of key priorities. The first will be to advance U.S. 
economic competitiveness and deepening the economic ties that are so 
central to opportunities, good jobs, and growth. And those ties are 
indeed impressive: two-way trade in goods and services reached $592 
billion in 2014--that is more than $1.5 billion daily. Mexican exports 
to the United States contain on average 40 percent U.S. content. The 
United States buys more than 70 percent of Mexican crude oil exports 
and supplies Mexico with refined products and natural gas. Now, more 
than ever, there are increased opportunities for close partnerships 
between the United States and Mexico. In May 2013, Presidents Obama and 
Pena Nieto established two new mechanisms--the High Level Economic 
Dialogue and the Bilateral Forum on Higher Education, Innovation, and 
Research--to promote economic opportunities, education and research 
collaboration, and North American competitiveness. The United States 
and Mexico are both committed to expanding trade and investment 
throughout the Asia-Pacific region through the Trans-Pacific 
Partnership trade agreement.
    It will also be essential to reinforce American security through 
continued cooperation and partnership under the Merida Initiative. The 
Initiative represents a new chapter in the history of our relationship; 
one explicitly based on mutual respect and on shared responsibility for 
combating transnational criminal networks and protecting our citizens 
from the crime, corruption, and violence they generate. Neither of us 
can do this alone--nor, under these two administrations, do we have to. 
The State Department has forged strong partnerships to improve civilian 
security in affected areas to fight drug trafficking, organized crime, 
corruption, illicit arms trafficking, money laundering, and demand for 
drugs on both sides of the border. The U.S. Government also is 
accelerating efforts to support and hold accountable the institutions 
that are essential to a stable society--police, justice systems, and 
civil society organizations--to adequately protect and defend the rule 
of law and human rights. If confirmed, I will focus on these efforts as 
the United States continues to promote respect for human rights and the 
rule of law through our continued high-level diplomatic engagement
    The border is the seam where cooperation is most important to U.S. 
interests. Improving our ports of entry ensures the safe and efficient 
flow of people and goods, vital to our economy and that of Mexico. We 
are committed to bringing our border infrastructure into the 21st 
century. We have renovated and expanded one of the world's largest 
border crossings at the San Ysidro port of entry near San Diego, where 
50,000 vehicles and 25,000 pedestrians enter the United States each 
day, as part of ongoing efforts to make crossings as efficient and 
secure as possible in support of economic growth and development. We 
are building an innovative pedestrian terminal that will cross the 
border at the Tijuana Airport to facilitate and expand regional travel 
for business and pleasure. Nearly 40 percent of the Mexican produce we 
buy in U.S. supermarkets passes through the Nogales, Arizona, crossing, 
and our renovations will expedite this vital trade. As we address 
Mexico's role in legal and clandestine migration to the United States, 
we must ensure orderly, safe, and lawful migration and protect the most 
vulnerable migrants. We also must continue close collaboration to 
address the enomenon of unaccompanied children from Central America.
    The United States enjoys robust and historic people-to-people ties 
with Mexico, to our benefit. We are focused on tapping that great human 
potential to enrich us both economically and culturally. More than 
4,000 U.S. and Mexican students, teachers, and scholars have 
participated in our binational Fulbright-Garcia Robles program since 
1948, and the United States is the top destination for Mexican students 
studying abroad. The United States and Mexico can accomplish great 
things together; through educational exchange, English language 
learning, professional training, and leadership development we can 
deepen people-to-people ties, develop a 21st century workforce, and 
expand economic opportunities for our citizens. I will build upon the 
success of President Obama's 100,000 Strong in the Americas initiative 
and other innovative ways that expand the opportunities for Americans 
and Mexicans to build a common future.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. If confirmed, I will continue 
to work diligently to cement the U.S. partnership with Mexico. Muchas 
gracias, and I will be happy to answer any questions.

    Senator Rubio. Ms. Dogo.
    Am I pronouncing this correctly? Is it Dogu?

       STATEMENT OF LAURA FARNSWORTH DOGU, NOMINATED TO 
           BE AMBASSADOR TO THE REPUBLIC OF NICARAGUA

    Ms. Dogu. Yes, sir.
    Senator Rubio. Okay, thank you. I just want to make sure I 
did not mess it up the first time I said it.
    So thank you for your service to our country and for your 
willingness to continue to serve.
    I wanted to ask you your thoughts on the potential of a 
canal that would act similarly to the Panama Canal and connect 
the Pacific Ocean and the Caribbean Sea through Nicaragua. What 
are the potential economic and environmental impacts this 
project can bring to the area?
    Ms. Dogu. Thank you for your question, Mr. Chairman.
    I have been following the situation with the canal as I 
have been preparing for this hearing today. Clearly, the United 
States Government is interested in that, and there are 
potentially large economic and environmental impacts. We are 
concerned with the lack of transparency as this project has 
been moving forward at this point, and we are watching that 
very, very carefully.
    At this point, we actually do not see that there are 
sufficient funds to start the construction of the canal at this 
time. There have been no investors identified other than one 
company, and we are not sure how that is going to play out.
    But if confirmed, I will continue to monitor that situation 
carefully.
    Senator Rubio. If you are confirmed, I am sure you are 
aware that there are a number of outstanding property claims 
from United States citizens against the Nicaraguan Government.
    If confirmed, what will be your strategy or your approach 
to helping with these claims that U.S. citizens currently have 
against that government?
    Ms. Dogu. Thank you, sir. Yes, I have been monitoring that 
situation as well.
    The 527 claim situation is actually in a very good position 
at this time. It appears that we may be close to resolving the 
last of those cases for the continuous claimants. Those are 
people who were U.S. citizens at the time their property was 
confiscated. There are, however, still many other cases of 
people who have become U.S. citizens since their property was 
confiscated. And if confirmed, I will continue to work on this 
through the U.S. Embassy, both through support through consular 
operations and through our property office at the Embassy.
    But there has been good progress made in that area, and I 
will continue to work with the Government of Nicaragua to make 
sure that we continue to move that forward.
    [The prepared statement of Ms. Dogu follows:]

                  Prepared Statement of Laura F. Dogu

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as the next 
United States Ambassador to Nicaragua.
    I am grateful for the trust and confidence President Obama and 
Secretary of State Kerry have shown by sending my name to the Senate 
for consideration. If confirmed, I look forward to working with you and 
your colleagues in Congress to protect and support U.S. citizens in 
Nicaragua. I will also work to promote a Nicaragua with transparent 
democratic institutions and values and a commitment to human rights, 
that is more economically integrated with other Central American 
countries, and that collaborates effectively with us on a growing range 
of issues.
    Growing up, I learned firsthand about the value of serving your 
country from my father, a career Navy officer who spent a lifetime 
protecting America with tours of duty across the United States, abroad, 
and at sea. I would also like to recognize my family, friends, and 
colleagues who have guided and supported me throughout my life and 
career.
    In preparation for the opportunity to lead our Embassy in Managua, 
I carefully reviewed White House, Department of State, and Bureau of 
Western Hemisphere Affairs guidance related to advancing America's 
interests in global security, inclusive economic growth, climate 
change, accountable governance and freedom for all. Two points made by 
President Obama and Secretary Kerry's stood out as particularly 
relevant to Nicaragua.
    President Obama rightly maintained, no system of government can, or 
should be, imposed upon one nation by any other . . . however, the 
United States is committed to governments that reflect the will of the 
people. Each nation gives life to this principle in its own way, 
grounded in the traditions of its own people. America does not presume 
to know what is best for everyone, just as we would not presume to pick 
the outcome of a peaceful election. But . . . all people yearn for 
certain things: the ability to speak your mind and have a say in how 
you are governed; confidence in the rule of law and the equal 
administration of justice; government that is transparent and does not 
steal from the people; the freedom to live as you choose. Those are not 
just American ideas, they are human rights, and that is why we will 
support them everywhere.
    If confirmed, I will be a strong proponent for these universal 
values. Nicaragua, in which human rights, democracy, and a vibrant 
civil society flourish, represents the surest path to attracting direct 
foreign investment and tackling endemic poverty in the country. More 
importantly, the universal values reinforce the importance of the 
people of Nicaragua choosing their own destiny as a people and nation. 
If confirmed, the Embassy will continue to regularly maintain contact 
with a wide range of Nicaraguan advocates on behalf of human, civil, 
and political rights. I will also seek opportunities to make the same 
case with leaders at the highest level.
    Secretary Kerry said, ``. . . we have to work together to eliminate 
extreme poverty through inclusive economic growth--because we know that 
no society can thrive when entire segments of the population are 
excluded from opportunity.''
    From 1991 to 2006, three successive Nicaraguan administrations 
focused on free market reform as the path to recovery after 12 years of 
economic free-fall during the period of revolution and civil war. These 
policies achieved macroeconomic stability, cutting inflation from 
33,548 percent in 1988 to 6.43 percent in 2014. Nicaragua also 
benefited from significant debt reduction through the Heavily Indebted 
Poor Countries (HIPC) Initiative. Since 1995, the economy has expanded 
at an average annual real growth rate of 4 percent. Even so, with a 
gross domestic product of $11.8 billion and a per capita income of 
$1,904 in 2014, Nicaragua remains the second-poorest country in the 
Western Hemisphere. Growth must almost double to significantly reduce 
the rate of poverty. Such growth is possible only with strong, more 
accountable public institutions.
    If confirmed, I will work hard to promote trade links, 
transparency, and the rule of law. Trade and investment opportunities 
are mutually beneficial and open the door for greater engagement on 
other essential U.S. priorities such as the development of stronger 
democratic institutions.
    Along these lines, the Strategy for U.S. Engagement in Central 
America promotes prosperity, governance, and security. Key to Central 
America's success is regional economic integration. Central America 
must integrate economically in order to compete globally. Our 
engagement with Nicaragua under this strategy will advance governance, 
regional integration, prosperity, and security.
    The occasion of my nomination as Ambassador leads me to reflect on 
my Foreign Service career. In posts as far flung as El Salvador, 
Turkey, Egypt, and twice in Mexico, as well as in Washington, DC, I 
have led dynamic teams, which have made real progress addressing rule 
of law, democracy, economic growth, transparency, and the protection of 
American citizens. Taken together, this extensive experience has 
prepared me to serve as Ambassador to Nicaragua if confirmed.
    Mr. Chairman, committee members, I thank you again for your 
consideration of my nomination and I welcome your questions.

    Senator Rubio. Mr. Holloway, after the recent discovery of 
oil off the coast of Guyana, Venezuela has made territorial 
claims into the Caribbean Sea, including the oilfield discovery 
that already belongs to Guyana.
    So what is our current U.S. policy with regards to this 
dispute between Venezuela and Guyana?

        STATEMENT OF PERRY L. HOLLOWAY, NOMINATED TO BE 
        AMBASSADOR TO THE COOPERATIVE REPUBLIC OF GUYANA

    Mr. Holloway. Thank you, sir.
    In spite of an 1899 decision, which granted most of the 
territory in dispute to Guyana, Venezuela has historically 
maintained claims to different parts of up to 67 percent of 
Guyana and parts of the coastline. Our policy so far to date is 
that we have been, as we have in many disputes like this, have 
encouraged both countries to seek out a peaceful resolution, 
whether it be by the U.N. or any other appropriate 
international fora.
    But at the same time, any country that makes claims still 
has to respect the Rule of the Sea and other international 
obligations, so we are monitoring it very closely.
    The Venezuelans put out another statement very recently, 
which replaced the one that had been done a few weeks ago. We 
are still trying to analyze that and understand it better.
    But we are encouraging both sides to reach a peaceful 
resolution.
    Senator Rubio. Thank you.
    [The prepared statement of Mr. Holloway follows:]

                Prepared Statement of Perry L. Holloway

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am deeply honored that 
President Obama has nominated me to serve as the United States 
Ambassador to the Cooperative Republic of Guyana. If confirmed, I look 
forward to working closely with this committee and all Members of 
Congress to advance our Nation's interests in Guyana and the broader 
Caribbean region.
    I would like to take a moment to recognize the tremendous support 
throughout my career from my wife, Rosaura Holloway, who is here with 
me today, and my daughter Paula, who is also here, and my son Nicholas, 
who could not be here. They have all benefited and suffered as a result 
of my career choice, and I want to thank them for their support. I 
would also like to single out my mom, Peggy Franklin, who is in South 
Carolina and who laid the basic foundation for me to have the 
opportunity to appear before you today.
    Mr. Chairman, I have had the honor to serve our country as a 
Foreign Service officer for the past 26 years in nine countries. I have 
served primarily in countries in the Western Hemisphere, so I am 
familiar with the types of challenges and opportunities that exist in 
Guyana. I have worked on programs dealing with security, drug 
trafficking, democratic values and human rights, energy and the 
environment, trafficking in persons, corruption, and the exchange of 
people and ideas. I have extensive experience with interagency partners 
like USAID, DOD, Peace Corps, DEA, and DHS. If confirmed, I believe 
that my experience in the region and my work with other agencies has 
prepared me well to lead the U.S. mission in Guyana.
    Guyana is a country with tremendous potential. It has vast pristine 
rainforests, fertile agricultural lands, proven mineral resources, 
potentially large oil reserves, and a close affinity with the United 
States. It is also a country facing challenges from crime, poverty, 
corruption, HIV/AIDS, natural resource management, and drug 
trafficking. If confirmed, I will work with the government and people 
of Guyana to confront these challenges and to continue to bolster 
economic growth, strengthen democracy and governance, improve the 
respect for human rights and rule of law, and promote opportunity for 
all. These are clearly areas of mutual interest.
    Guyana is also a key partner in bolstering regional security. 
Through the President's Caribbean Basin Security Initiative, we are 
cooperating to counter the threats of transnational crime and 
terrorism. Improved security for all citizens of the Caribbean is 
essential to the region's future stability and prosperity, as well as 
to our interests. I will work closely with the appropriate agencies of 
the U.S. Government to strengthen our security cooperation with Guyana.
    Guyana is one of the poorest countries in the hemisphere. That is 
why we have historically worked with the government and private sector 
to support efforts to diversify the economy and create new 
opportunities in agribusiness, aquaculture, wood products, and 
ecotourism. If confirmed, I will continue to work with the government 
and private sector to strengthen Guyana's market competitiveness, build 
its trade capacity, improve the investment climate, and promote greater 
two-way trade with the United States.
    Guyana is also a leader in efforts to address global climate change 
through its low carbon development strategy that is helping preserve 
its vast rain forest. We have worked with the Government of Guyana to 
develop sustainable forestry and ecotourism and to enhance its capacity 
to implement the Reduced Emissions from Deforestation and Forest 
Degradation, or REDD initiative, while also encouraging sustainable 
economic development. I hope to have the opportunity to continue these 
efforts.
    HIV/AIDS is a problem in Guyana and the United States has made a 
significant contribution to combating this disease with over $165 
million invested since 2004. Our funding has made a difference. 
Guyana's prevention and care programs, central laboratory, and state-
of-the-art logistics system are models for others in the region. The 
program has also benefited Guyana's health systems by enhancing the 
country's laboratory capacity, improving the ability to store and 
distribute medicines, and strengthening the management of broader 
health services. As a result of these U.S. Government investments, 
Guyana now is able to respond to the threats from infectious diseases. 
If confirmed, I will work with the government and other health partners 
to sustain the gains we have made and transition ownership of the 
programs to the Government of Guyana.
    Mr. Chairman, Guyana recently held national elections and the party 
that had been in power since the country's first democratic elections 
nearly 23 years ago was replaced. The elections were deemed free and 
fair by the international community. This is an important indicator 
that Guyana is continuing to build on progress it has made since 
emerging as an independent nation in 1966 and instituting multiparty 
democracy in 1992. The new President and his multiethnic coalition 
government have embarked on an ambitious transformative agenda for the 
county that centers on eliminating racial and ethnic exclusion, 
countering organized crime, combating corruption, developing 
infrastructure, broadening economic growth, and establishing 
sustainable management of the country's natural resources. The 
government's agenda largely coincides with our own interests, providing 
us new opportunities to confront long-standing challenges. I look 
forward to working with all relevant actors to ensure that the 
bilateral relationship continues to be one based on shared interests 
and mutual respect. If confirmed, I will continue the work we have been 
doing with the government and civil society on programs to strengthen 
governance structures, promote constructive political dialogue, and 
encourage greater citizen participation in the political process--all 
necessary for a strong democracy.
    The United States has a special link to Guyana through the many 
Guyanese who live in our country. It is estimated that there are more 
than 300,000 Guyanese in the United States and maybe another million 
people here of Guyanese descent. In Guyana itself, estimates are that 
over 70 percent of Guyana's citizens have family living in the United 
States. If confirmed, I look forward to collaborating with the hard-
working diasporas in New York, New Jersey, Florida, and other states to 
find ways that they can contribute to a more stable and prosperous 
Guyana.
    Guyana is a Caribbean country located in South America. The 
Caribbean Community, or CARICOM, headquarters is in Guyana. If 
confirmed, I would also serve as the U.S. representative to CARICOM, 
whose 15 member states work together to promote regional integration 
and cooperation. CARICOM has a vital role in building a secure and 
prosperous Caribbean, and I look forward to working with the Secretary 
General and CARICOM states to strengthen the Organization and our 
relationship with it, while also advancing our common interests 
throughout the Caribbean with respect to trade, investment, energy, 
development, and security.
    Mr. Chairman, these are just some of the opportunities and 
challenges that the United States is addressing in Guyana and within 
the Caribbean. If confirmed, I look forward to working with you and 
your colleagues to improve the already close and productive partnership 
between the United States, Guyana, and CARICOM. You can count on me to 
work hard to protect American citizens, promote U.S. business in the 
region, manage U.S. programs efficiently, and vigorously advance the 
goals of the United States of America.
    I would be happy to answer any questions you may have. Thank you.

    Senator Rubio. Mr. Mulrean, in the 2004 trafficking in 
persons report, Haiti was listed as a Tier 2 Watchlist for 
Trafficking. The majority of Haiti's cases were identified as 
children in domestic servitude.
    We discussed that a moment ago in a previous hearing. I 
think you had a chance to watch some of that.
    Haiti has been granted a waiver from being placed on a Tier 
3 because it had a written plan, which would make significant 
steps toward combating trafficking. How would you assess the 
implementation of their plan to combat trafficking, at this 
point?

        STATEMENT OF PETER F. MULREAN, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF HAITI

    Mr. Mulrean. Thank you very much, Mr. Chairman.
    As you stated, 2014 was a good year on paper for Haiti 
regarding trafficking in persons. There was passage of the 
antitrafficking legislation, and they created a plan for the 
next 2 years, 2015 to 2017, for implementing it.
    At the moment, they have begun to take positive steps, and 
they have set up what looks like a whole-of-government 
approach, but the proof of it will be in their execution. At 
this point, the execution is nascent.
    I think the government has an understanding of the 
seriousness of the situation. But at this point, we are waiting 
to see them take the serious steps. As with so many other 
issues in Haiti, it is a question both of capacity, having the 
institutional capacity whether it is with the police, even the 
NGOs, and the institutional capacity to deal with these, the 
judicial capacity to prosecute. But it also, sir, a question of 
political will. And we are hoping, as with many other things, 
that after the upcoming elections, we will have a President and 
a Parliament in place that will be willing to put political 
will into some of these difficult issues.
    Senator Rubio. Trafficking for domestic servitude is one of 
the issues that receives a tremendous amount of attention, but 
there has also been extensive media reporting over the last few 
years of children being sold into sex slavery, including in 
makeshift brothels that exist on the border region with the 
Dominican Republic.
    How familiar are you with that? What is the status of that 
over the last 5 years? And would that be a priority for our 
Embassy in Port-au-Prince, if confirmed?
    Mr. Mulrean. Well, let me start off by saying that, if 
confirmed, it would absolutely be a priority, as I believe it 
already is for the Embassy in Port-au-Prince.
    I am not familiar with the current details of the 
trafficking on the border area. We have, however, taken 
significant steps in terms of our assistance programs, both on 
supporting civil society to do awareness-raising and advocacy 
as well as to deal with the victims of trafficking. We are also 
working with the Government of Haiti to increase capacity in 
identifying awareness.
    There are a number of issues that have been stalled by the 
current political impasse of the last 2 years, but we will give 
it our utmost to move this issue forward.
    Senator Rubio. As you know, cholera has already taken the 
lives of over 8,900 Haitians and infected about 744,000 of 
them. Given the disturbing new spike in cases of cholera in 
Haiti, what initiatives is the United States undertaking or 
will the United States undertake to help address ongoing 
epidemic?
    Mr. Mulrean. Thank you, Senator.
    The incidence of cholera has seen a recent spike, but this 
is after a 92 percent reduction in cases in the last couple 
years. The United States has put $95 million into a program of 
activities that has both been to deal with the immediate 
response to the cholera cases, but in some ways even more 
importantly to build into the national health system the 
ability to deal with cholera and, in the future, other 
communicable diseases.
    We coordinate closely with other donors, and we do believe 
that the situation, while troubling given the recent increase, 
is not out of control.
    Senator Rubio. Well, let me ask you, what will the United 
States do to ensure that the United Nations is held accountable 
for those already harmed by the disease?
    Mr. Mulrean. Sir, the United Nations, in response to the 
cholera outbreak, has been heavily engaged in the response 
through the World Health Organization and others. They are in a 
position, as the coordinator of a lot of assistance activities, 
to ensure that the follow-through reduces cholera to a point 
where it is as close to zero as can be.
    [The prepared statement of Mr. Mulrean follows:]

                 Prepared Statement of Peter F. Mulrean

    Thank you, Mr. Chairman. I am honored to appear before you today as 
President Obama's nominee to serve as U.S. Ambassador to the Republic 
of Haiti. I am grateful for the trust and confidence President Obama 
and Secretary Kerry have placed in me by nominating me to this 
important post. If confirmed, I look forward to working with you on 
Haiti, a country joined with the United States by broad and deeply 
rooted ties, both historical and contemporary, institutional and 
individual.
    I have had the privilege of serving in the Foreign Service for the 
past 27 years and the great fortune to be a witness to, and 
occasionally a participant in, significant developments of the past 
generation. My career has taken me from the former Yugoslavia as it 
crumbled, to India as it awoke economically. I have helped oversee 
innovative reform programs during transitions in Eastern Europe, the 
Middle East, and Afghanistan. I have worked closely with the U.N. on 
humanitarian response to a series of crises and on efforts to build 
peace and to defend the rights of all individuals. Reaching beyond 
governments, I have learned the power of partnership with civil 
society, business and the media in advancing common objectives. And as 
I stand before both the challenges and opportunities in Haiti, I 
believe all of this experience would serve me well if confirmed.
    Throughout its history, Haiti has often been viewed as a symbol of 
powerful ideas and forces. Having defeated the most formidable military 
power of the time and definitively thrown off the chains of slavery, 
Haiti became the second independent nation in the Western Hemisphere. 
For this, Simon Bolivar praised Haiti for its contribution to the 
liberation of Latin America. Diplomatic relations between the United 
States and Haiti stretch back more than 150 years, and among those who 
have served as U.S. Minister to the Republic of Haiti was the great 
civil rights leader Frederick Douglass. The United States is also home 
to a substantial and vigorous Haitian diaspora with strong patriotic 
feelings. Both in their homeland and abroad, Haitians are rightly known 
for their energy, resilience, creativity, pride, and strong sense of 
history.
    That history is marked by stirring achievements, but also by 
periods of violence and misrule, which allowed human rights abuses to 
go unpunished and left ground for poverty to take root. Although Haiti 
is a country of vivid images, this does not mean it is always perceived 
clearly by the international community. Misfortunes such as hurricanes, 
disease, and the devastating 2010 earthquake are too often what put 
Haiti on the front pages. But the United States recognizes that while 
challenges and problems are part of Haiti's reality, they are not the 
sum of Haiti's reality. Having helped address Haiti's immediate 
humanitarian needs in the wake of the earthquake, the United States is 
focused on supporting the country's longer term development, working in 
partnership through a Haitian-led process to help the country build a 
more promising future.
    The U.S. strategy to help Haiti become a more democratic and 
prosperous neighbor involves both near term and longer term goals. The 
most pressing task facing Haiti is, of course, the holding of 
successful and peaceful parliamentary, local government, and 
Presidential elections. The United States strongly recognizes the 
importance of all Haitians being able to go to the polls to participate 
in representative governance through a credible and transparent 
electoral process. I know that Congress shares this goal, and your 
consistent underscoring of the importance of Haitians freely expressing 
their preferences at the ballot box has been invaluable in moving Haiti 
forward toward elections.
    The United States commends Haitian President Michel Martelly and 
the members of Haiti's independent Provisional Electoral Council (CEP) 
for their efforts to prioritize the holding of elections this year. I 
would emphasize that the United States has no vote in these elections 
and does not support any candidate or group of candidates. Simply put, 
we support the democratic process. We are pleased that an electoral 
decree and calendar have been published, and we are committed to 
working with the Government of Haiti and our international partners to 
coordinate appropriate assistance--including the deployment of 
international observers--to help ensure that elections are inclusive, 
transparent and credible. As electoral planning continues, the United 
States supports the CEP, the United Nations, the OAS, and the 
Government of Haiti (including its national police) in their efforts to 
coordinate, support, and execute successful 2015 elections. We are 
encouraging all actors to participate fully in the electoral process, 
to abide by the rule of law, and to pledge to a high standard of 
transparency.
    Successful elections are the highest priority of our near term 
engagement with Haiti. The citizens of Haiti choosing their leaders and 
representatives through fair, democratic means feeds into and 
reinforces our broader, longer term goal of fostering good governance, 
which in turn is essential for building capacity. There are no quick 
fixes or shortcuts; the process requires a long-term commitment on our 
part. And, while the commitment of the United States is steadfast, 
Haiti's success will, ultimately, depend on the actions of the Haitian 
people. We can advise and assist, but Haiti's development must reflect 
goals and priorities that the government and people of Haiti have 
identified, and for which they are exercising ownership. In 
coordination with other donors, the United States is working to equip 
key Haitian institutions with the skills necessary to manage resources, 
both financial and human, and to plan and execute projects. The 
confidence of the Haitian people in their government will in large part 
depend on its effectiveness in delivering basic services.
    That said, sustained capacity-building and effective governance 
require funds. Regardless of our efforts in other areas, without a 
healthy economy, Haiti will remain poor and dependent. It is 
indisputable that no long-term development goals in Haiti can be 
sustainable without the growth of the private sector. Therefore, 
helping Haiti strengthen, expand, and diversify its economy is a key 
element of our strategy. Haiti has seen positive economic growth since 
the earthquake, but more needs to be done. Unfortunately, political 
gridlock has hindered progress. The impasse between Haiti's executive 
and legislative branches has stymied the passage of legislation in such 
important areas as an updated business code, an updated criminal code, 
clarification of property rights, and the provision of electronic 
signatures. Advances in these areas would strengthen investor 
confidence in the Government of Haiti's pledge that ``Haiti is open for 
business.''
    Thanks to consistent, broad, bipartisan support in Congress, U.S. 
Government assistance to Haiti has been substantial. Since the 
earthquake, $4.1 billion has been made available in immediate 
humanitarian assistance following the earthquake and for long-term 
reconstruction. Of the $4.1 billion made available, 80 percent--$1.3 
billion for humanitarian relief and $2.0 billion for reconstruction and 
development has been disbursed. Since 2010, U.S. post-earthquake 
assistance to Haiti has helped to measurably improve key economic and 
social indicators and build infrastructure necessary for self-
sustaining growth.
    In response to Haiti's desire for investments that support economic 
growth outside of Port-au-Prince, the United States has targeted some 
of its most significant assistance to one of Haiti's poorest regions in 
the North. The Caracol Industrial Park (CIP) is a public-private 
partnership that is funded by the Inter-American Development Bank and 
is owned by the Government of Haiti. The U.S. Government contribution 
consists primarily of support for building a modern power plant that is 
now providing reliable electricity to the CIP as well as more than 
7,000 local businesses and households in the community. Caracol was 
conceived as a long-term public-private investment in Haiti's north and 
will require time and continued support to reach its full potential. As 
of July 2015, in just 3 years of operation, approximately 7,500 jobs 
have been created at the Caracol Industrial Park. More jobs are 
expected as facilities expand. Anchor tenant Sae-A is projected to 
eventually create 20,000 jobs, and the Haitian owned Coles Group has 
announced it will create 2,500 jobs at Caracol once further phases of 
construction are completed. Apparel accounts for over 90 percent of 
U.S. imports from Haiti. Thanks to the preferences accorded under the 
HELP and HOPE Acts, apparel imports from Haiti are up, increasing by 
over 6 percent in 2014 to a total of $854 million. Also promising is 
the growth of value-added apparel exports which increased by 43 percent 
in 2014, signaling a movement toward more complex products that could 
yield higher wages for Haitian employees. This growth would not have 
been possible without congressional action on the HELP and HOPE Acts.
    The United States has also helped Haiti increase agricultural 
productivity by introducing improved seeds, fertilizer, and 
technologies to more than 70,000 farmers, which have helped increase 
yields for rice, corn, bean, and plantain crops as well as increase 
mango exports by 175 percent. Our funding has placed over 33,000 
hectares of hillside farmland under improved watershed management. We 
have supported an innovative business-plan competition that provides 
matching grants of up to $200,000 to small- and medium-sized 
enterprises (SMEs) investing their own capital to expand their 
businesses. So far, 60 businesses have received technical assistance, 
of which 31 were awarded grants, leveraging over $10 million in private 
capital for a total investment of over $15 million. Through our 
assistance programs we have extended Development Credit Authority 
guarantees of up to $57 million in loans by local commercial banks, 
microfinance institutions, and credit unions. Working through the U.S. 
Agency for International Development (USAID), the U.S. Government has 
also partnered with the Overseas Private Investment Corporation to 
bring $26 million of long-term financing and technical assistance to 
Haiti for housing finance, as well as working capital loans to SMEs. 
Additionally, the U.S. Treasury Department is providing technical 
assistance to the Ministry of Finance to improve budgeting, tax 
collection, and cash and debt management.
    The United States has also increased agricultural productivity in 
Haiti by supporting more than 300 farmer associations comprising more 
than 70,000 farmers. This has led to increased crop yields and gross 
profit margins for maize, beans, rice and plantains by a minimum of 
five times, and has increased mango exports by 250 percent. Our funding 
has placed over 33,000 hectares of hillside farmland under improved 
watershed management. We have supported an innovative business plan 
competition that provides matching grants of up to $200,000 to small- 
and medium-sized enterprises (SMEs) investing their own capital to 
expand their businesses. So far, 60 businesses have received technical 
assistance, of which 32 were selected to receive over $5 million in 
matching funds to expand operations; those firms have invested an 
additional $10 million of their own funds. Through our assistance 
programs we have extended Development Credit Authority guarantees of up 
to $57 million in loans by local commercial banks, microfinance 
institutions, and credit unions. Working through the U.S. Agency for 
International Development (USAID), the U.S. Government has also 
partnered with the Overseas Private Investment Corporation to bring $26 
million of long-term financing and technical assistance to Haiti for 
housing finance, as well as working capital loans to SMEs. 
Additionally, the U.S. Treasury Department is providing technical 
assistance to the Ministry of Finance to improve budgeting, tax 
collection, and cash and debt management.
    The United States is also working to help improve justice and 
security for Haitians. Since the earthquake our assistance has made 
possible the training and commissioning of 3,300 new officers in the 
Haitian National Police (HNP). The capacity and professionalism of the 
HNP is increasingly important as the U.N. Stabilization Mission in 
Haiti (MINUSTAH) draws down. The HNP's performance has indeed vastly 
improved, most notably in antikidnapping investigations and crowd 
control capacities. We have helped create a new HNP community policing 
unit, which has grown to over 80 officers, in partnership with the New 
York City Police Department and MINUSTAH. Using approximately $54M in 
FY10 Supplemental funds, the USG completed construction of six 
commissariats, barracks at the Presidential palace, and a pier; 
construction of three prisons, a range of facilities for the 
counternarcotics police (BLTS), and improvements at the HNP School are 
all underway. Our programs have trained and equipped the BLTS, 
increasing its size from about 40 to almost 200 officers and adding a 
19-dog K-9 unit. The Miami-Dade Police Department trained 74 
counternarcotics officers to help ensure sustainability of our 
counternarcotics efforts. Funding from the U.S. Government has 
supported the training of 2,392 judicial actors and helped reconstruct 
more than 32,000 judicial case files following earthquake loss or 
damage. Much work remains, especially in the judicial and corrections 
sectors, but with U.S. assistance the Government of Haiti is 
increasingly providing improved security for its people.
    A positive sign is that the number of Haitians attempting to leave 
Haiti for the United States is down. To help deter dangerous and 
illegal sea migration and address a localized surge in human smuggling 
in the waters off of Puerto Rico, the United States resumed in October 
2014 the expedited removal of newly arrived Haitian migrants illegally 
present on U.S. islands in the Mona Passage or on Puerto Rico. At the 
same time, the United States established a safe, lawful alternative to 
migrant voyages through the Haitian Family Reunification Parole (HFRP) 
program, which allows eligible Haitian beneficiaries of family-based 
immigrant visa petitions to come to the United States and join their 
families before their immigrant visa priority dates become current. The 
resumption of expedited removal operations in the Mona Passage and the 
opportunities provided through the HFRP program have led to a marked 
decrease in illegal sea migrant activity, with U.S. Coast Guard migrant 
interdiction statistics showing a decrease in the number of Haitians 
attempting to enter the United States illegally by boat in the first 
quarter of FY 2015 compared to the same period in FY 2014.
    One aspect of Haitian security involves the situation along its 
border with the Dominican Republic. We are deeply concerned by the 
reports from the Dominican Republic that tens of thousands of people, 
mostly Haitians and people of Haitian descent, have crossed the border 
from the Dominican Republic into Haiti since June 17. We are monitoring 
the situation closely and actively engaging with the Government of the 
Dominican Republic, the Government of Haiti, the United Nations High 
Commissioner for Refugees, the International Organization for 
Migration, civil society organizations, and the international community 
to confirm that the appropriate authorities work to ensure the security 
and welfare of all who cross the border and the protection of their 
human rights. The United States is also funding civil society 
organizations and international organizations, including the 
International Organization for Migration (IOM), to assist with these 
efforts. We continue to encourage the Governments of the Dominican 
Republic and Haiti to consult and collaborate with each other and with 
civil society groups and international organizations to develop and 
duly implement processes that uphold the rule of law, provide 
procedural safeguards, and are consistent with each country's 
international obligations and commitments. If confirmed by the Senate, 
I will do my utmost on this priority issue.
    Development work in Haiti has never been easy and we are committed 
to active monitoring and evaluation of all our assistance activities to 
maximize their impact in support of our strategy. There are projects on 
which we have not attained the results initially expected and we have 
made adjustments accordingly. The three main areas where we have made 
mid-course corrections have involved new housing construction, a new 
port facility, and providing more assistance directly to Haitian 
organizations. Building permanent new homes proved more costly and time 
consuming than projected. This led to a shift in the permanent housing 
strategy, to emphasize private-sector housing finance opportunities for 
low-income Haitians, neighborhood upgrades, and support to help 
Haitians transition temporary facilities into safe permanent 
communities. Regarding a new port in the Fort Liberte area in Haiti's 
north, there is not sufficient interest at this time from the private 
sector to support construction. Therefore, the Government of Haiti 
agreed that a more effective strategy would be to modernize and upgrade 
existing port facilities at nearby Cap Haitien. We agreed, and this 
project is currently underway. Finally, in the immediate aftermath of 
the earthquake, which crippled many local Haitian NGOs, the U.S. 
Government used international NGOs to initiate emergency relief 
efforts. They had the advantage of being immediately operational and 
they had vast experience expediting the provision of food, shelter, and 
security in an unstable environment. Now that Haiti has transitioned to 
long-term reconstruction and development, U.S. investments support a 
more sustainable development approach that includes building the 
capacity of local organizations. Today, the U.S. Government is helping 
local organizations develop their administrative and financial 
capacities--in particular accounting, reporting, and audit preparation 
functions--so that they can better compete to be direct recipients of 
U.S. funding. I attach great importance to our new approach to increase 
direct support to Haitian organizations.
    We have tried to learn from our course corrections. Despite having 
fallen short of our original objectives in some cases, we can credit 
U.S. assistance for genuine positive developments in Haiti. Our funding 
helped house more than 328,000 earthquake-displaced Haitians by 
providing transitional shelters, repairs to damaged homes, support to 
host families, and rental vouchers. Almost 95 percent of displaced 
persons have left the tent camps, which are all but gone. We have 
funded the removal of 2.7 million cubic meters of earthquake rubble--36 
percent of the estimated 7.4 million cubic meters of total rubble 
removed. Our support for Haiti's infrastructure includes the 
reconstruction of Haiti's University Hospital and other damaged health 
facilities, and the construction of seven police stations and the 
Presidential security unit barracks. Nearly half of all Haitians have 
access to basic health services at U.S.-supported health facilities, 
and we have provided $95 million for cholera treatment and prevention, 
including clean water and sanitation activities. This has led to 
improved basic health indicators and a dramatic decrease in the 
incidence of cholera. Primary school enrollment is up, with the United 
States funding the construction of more than 600 semipermanent 
furnished classrooms, enabling over 60,000 children to return to 
school. We have helped more than 100,000 businesses and households 
convert cook stoves from charcoal to clean liquefied natural gas, and 
supported the planting of 5 million tree seedlings.
    Welcome as these improvements are, more needs to be done--
particularly in the area of effective governance. Haiti's leaders must 
foster a political, societal, and economic environment conducive to 
economic development and prosperity. Sustained development will not be 
possible without responsive, accountable, and transparent governance; 
without just application of the rule of law and respect for human 
rights; without new laws and changes in existing ones to attract 
investment; and without a fully staffed and functioning government in 
every branch.
    In analyzing Haiti's prospects for building a better future, and 
how the United States can help, we must look realistically at the 
challenges that country faces, but also not lose sight of factors 
working in its favor. One of the most important of these is the 
widespread support Haiti enjoys among the American public in general 
and here on Capitol Hill in particular. Support from Congress was 
swift, tangible, and significant, totaling $4 billion in post-
earthquake assistance appropriated. No less important has been your 
sustained attention to that country, particularly at times when steps 
in democratic progress have needed encouragement. If confirmed as 
Ambassador to Haiti, I look forward to working with you in addressing 
our shared goal of helping Haiti move forward, and I would encourage 
you to visit.
    As valuable as American support is, the greatest of Haiti's assets, 
its ace in the hole, is its people. Although by some economic indices 
Haiti ranks as the poorest nation in the Western Hemisphere, in human 
capital it is rich. Haitians have demonstrated dynamism, resilience, 
creativity, and courage on a scale far beyond the country's modest 
size. We seek to help Haitians create the conditions--political, 
economic, and social--in which these talents can be put to best use.
    Much remains to be done in Haiti, and I would not wish to 
understate the scope of the task or the need for a long-term commitment 
in order to achieve lasting progress. But the past 5 years have also 
been marked by measurable improvements in the lives of Haitians and 
genuine accomplishments in Haiti's recovery and development. Americans 
can take satisfaction in helping Haitians help themselves. If confirmed 
by the Senate, I will do my utmost to focus on a realistic and 
achievable agenda to help make the U.S.-Haitian partnership stronger 
than ever.

    Senator Rubio. I await the arrival of my colleagues, so I 
will just keep going for a little while.
    I wanted to return to Mexico for a moment, Ms. Jacobson. 
For a lot of Americans, there has been a lot of discussion the 
past few weeks and months about the state of affairs in Mexico. 
I think Mexico has a lot to be optimistic about.
    One of the things that people are concerned about, I, 
certainly, have been, watching both from this committee and 
from the Intelligence Committee, is the notion that there are 
regions in the northern part of Mexico that are not fully in 
the control of their government. In essence that criminal 
groups have de facto control these areas and, in particular, 
one of the groups that is controlled by this horrific 
individual who was able to escape in the last few days and 
poses a threat to the United States and to his own people.
    I would just take an aside to say I have seen some chatter 
over the last few days that I think clearly understates who it 
is that we are dealing with here in this individual, El Chapo. 
He is a murderer, a person who is involved in virtually every 
nefarious activity one can imagine, including kidnapping, 
murders, and crimes committed within the United States 
facilitated by his organization.
    How would you describe the challenges the Mexican 
Government faces in terms of providing security and stability, 
particularly in those areas where perhaps they do not have 
effective control over their territory as they would desire to 
have?
    Ms. Jacobson. I think, Mr. Chairman, in the first place, I 
think I would want to associate myself entirely with your 
characterization of El Chapo Guzman. To minimize his role or 
the horror of what he has wrought with the Sinaloa cartel I 
think would do a disservice to his victims and to people who 
have been touched by the trafficking and the violence that the 
group has wrought.
    Clearly, the Government and the people of Mexico face a 
very complicated and a very difficult security situation. It is 
much more difficult in about a half-dozen states in the country 
than elsewhere. It is not nationwide. That is where the 
majority of the homicides take place, the majority of the drug 
violence, the majority of the territorial control between and 
among cartels.
    It is important to remember, I think, that during the 
congressional and gubernatorial elections that took place a 
little over a month ago, I guess, just about a month ago, 99 
percent of polling stations opened and operated normally around 
the country, even in some of those places that have had high 
levels of violence. So they were able to undertake the 
elections and people were able to vote freely even in places 
where you had rumors that they would not be able to exercise 
their vote.
    So I think that the notion that they have lost control of 
their territory, while clearly they are under siege in some 
places and there are places where people are fearful of local 
authorities, and local authorities themselves are part of the 
problem, not part of the solution, I think that there are a 
number of places where it has been turned around, where the 
Mexican Government at the local, state, and federal level have 
been able to gain back the control.
    That is what the Mexican Government continues to work on 
and we in support of them, places like Ciudad Juarez in 
Chihuahua, which for a time was really a no-go area and really 
has been coming back with levels of violence that have dropped.
    My colleague here served in Juarez during a very difficult 
time as a great leader in our consulate.
    So I do think that to continue to work on the institutions 
of government to make sure that they are transparent, on 
anticorruption mechanisms as the Mexican congress has just 
passed, is critical to getting a handle on the full gamut of 
security problems they face.
    Senator Rubio. Another issue that, of course, is well 
documented in the United States is the migratory issues that we 
face across the border. Perhaps what many people are not as 
aware of over the last few years is the trend now of a growing 
number of people who are crossing the U.S. southern border, the 
Mexican northern border, are not from Mexico. In particular, we 
have seen a large upsurge of people migrating from the Northern 
Triangle countries, El Salvador, Guatemala, Honduras.
    First of all, what is the approach of the Mexican 
Government, at this stage, to the reality that you know people 
pushing up through the country from their southern border? And 
where are the opportunities to work cooperatively with them on 
both sides of the border to seal off the opportunities to 
transit illegally, which, in fact, is a magnet for more people 
to attempt to do it?
    Ms. Jacobson. Absolutely. I think it is a very important 
question, Senator.
    You know, I think last year's surge in migrants from 
Central America was an important kind of bellwether not just 
for the United States in how we are focused on Central America 
and the root causes of such migration, but also for Mexico, 
which has seen migrants move through its territory for a long 
time, but not in those kinds of numbers.
    In the last year, the numbers coming into the United States 
have dropped dramatically, but a big part of that has been the 
Mexican effort to reduce the number of people coming into 
Mexico at their southern border and to also reduce some of the 
most dangerous practices that are being affected on migrants, 
such as riding on the infamous train north, La Bestia, and 
shutting that down so that migrants cannot be exploited 
violently on that trip north, including unaccompanied minors.
    So we have worked very closely with Mexico on this, 
including on their southern border strategy, devoting 
resources, training so that they can help both gain control 
over their southern border with Guatemala with new task forces 
working with the Northern Triangle countries, and then 
obviously working with Mexico but also with the Northern 
Triangle countries on the root causes that are causing the 
migrants to flee in the first place.
    Senator Rubio. Okay, thank you.
    Senator Flake.
    Senator Flake. Thank you. I wanted to be here earlier, but 
votes intervened.
    Senator Rubio. I am going to go now.
    Senator Flake [presiding]. Okay, now let us get back to 
Cuba policy. [Laughter.]
    Senator Flake. Just joking.
    Ms. Jacobson, we are very excited, at least I am, 
certainly, in Arizona to have you headed to Mexico, hopefully, 
if you are successful in your nomination.
    I am sure you talked about some of the border issues. You 
were talking about some of them when we came in. But what is 
often overlooked is the tremendous amount of trade that goes 
on. Mexico is a huge trading partner with the United States and 
obviously of huge importance to the State of Arizona.
    We obviously need border security, better border security 
than we have. We also need to make sure that we have the 
infrastructure, not just green uniforms at the border, but blue 
uniforms as well to facilitate trade.
    Can you talk about the importance of that?
    Ms. Jacobson. Absolutely, Senator. Thank you.
    I think that what we call the 21st century border strategy 
that we are working on is so critical to the United States' 
competitiveness, to North American competitiveness. We know 
already that many, many goods that we manufacture cross the 
border many times in that process. We know that $1.5 billion a 
day in trade crosses the border between the U.S. and Mexico.
    But we know that right now our infrastructure is not 21st-
century, and we need to get that better. But there are huge 
improvements being made, whether it is at Nogales, where so 
much of the winter fruits and vegetables come through to the 
United States, new crossings that are being opened, the first 
rail crossing in 100 years.
    With our Mexican partners, this is a critical part of our 
economic strategy for competitiveness of both countries.
    We also know that of imports of finished products from 
Mexico, 40 percent of the inputs to those products are from the 
United States. The comparable figure from China is 4 percent. 
So it is good for American jobs to continue working with Mexico 
in that partnership.
    And frankly, security and legitimate trade are not zero-
sum. They have to be pursued in tandem along the border. It is 
the seam that knits us together. And it is critical for the 
communities, as you know, all along that border.
    Senator Flake. Right. You mentioned the improvement in 
infrastructure. On the Arizona side, certainly the Mariposa 
port, the international border there at Nogales is important, 
and we have invested quite heavily. There are also commitments 
on the part of the Mexican Government to undertake certain 
infrastructure improvements.
    How can you help in terms of advocacy to help them comply 
with their obligations there?
    Ms. Jacobson. I think that is really important. As you 
know, the Mexican model is a little bit different from ours. 
There are often concessions. And we have worked very closely 
with the Mexican Government to try and make sure that to a much 
greater extent their own planning and our planning match up, so 
that you do not have cases where either our side is finished 
before theirs or vice versa. And I would continue, if 
confirmed, to advocate very strongly to ensure that our 
planning is done so that we can make sure that their side 
finishes up as quickly as ours or vice versa, in some cases.
    There are now master plans along the border, in most cases, 
Texas, Arizona, California. Making sure that we coordinate 
those things across the border is just critical.
    You know that the Arizona-Sonora coordination is critical 
at the State level, and I would do everything I could from the 
Federal side and the Embassy leadership side, to push the 
Mexican Government and through them the concessionaire to make 
sure that we get things moving in sync at all times.
    Senator Flake. Great. That will, certainly, be helpful. 
There is a lot of cooperation that goes on in terms of safety 
inspections and whatnot. If there is good cooperation on the 
Mexican side of the border, we can smooth and make this a lot 
easier.
    Ms. Jacobson. And, as you know, preinspection is coming to 
cargo, and that is very exciting to reduce wait times at the 
border for products.
    Senator Flake. We are very excited about that.
    Anyway, thank you, all. Because we have votes going on, and 
I know that Senator Menendez needs to get back as well, I will 
turn it over to him. But like I said, we are very excited.
    For the rest of you all, I will let the other answers 
stand.
    But, Ms. Jacobson, I have been thrilled to work with you in 
the past and look forward to working with you in the future.
    Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Congratulations to you all for your nominations and your 
willingness to serve our country.
    Ms. Jacobson, let me ask you, we are all incredibly, deeply 
troubled by Joaquin Guzman's escape over the weekend, and I am 
particularly disturbed by the fact that Guzman was arrested in 
February 2014, and from all indications available, the U.S. did 
not request his extradition until February of this year.
    Can you explain why the State Department did not request 
Guzman's extradition for a year, especially when he is facing 
charges in at least seven U.S. Federal district courts? He has 
long served as the overlord of what is considered the most 
powerful drug cartel on the planet. What happened here?
    Ms. Jacobson. Senator, what I can say, because we do not 
get into the details, and I cannot since I am not a Department 
of Justice employee, which basically prepares all of the 
extradition packages with lawyers at the State Department, what 
I can tell you is that we always want to extradite or seek 
extradition of all of those who are detained overseas against 
whom there are charges in the United States.
    We have been discussing extraditions and the pace of 
extraditions and our desire for greater extraditions with 
Mexico for a number of years now. But what I cannot tell you is 
the exact reasons or timing for the particular possible or 
actual extradition requests.
    Senator Menendez. So are you telling me that the State 
Department's only role in extraditions, whether it be this or 
any other one, is to act upon the Justice Department's 
instigation?
    Ms. Jacobson. No. There are, certainly, lawyers within the 
State Department who work with the Justice Department, but it 
is the Justice Department that puts together, with the State 
Department, the extradition requests of other governments.
    Senator Menendez. So it is the Justice Department that 
delayed it?
    Ms. Jacobson. I cannot tell exactly what the delay was. I 
have to refer----
    Senator Menendez. Someone is going to have to tell the 
United States Senate why it took a year before we even asked 
for his extradition, when this man is sought in seven Federal 
districts, has a whole host of charges, one of the most 
dangerous people in the Western Hemisphere, and we know the 
risk of him breaking out of a Mexican jail is high.
    Ms. Jacobson. I cannot confirm the exact time when the 
request was made, Senator, except to refer you to the Justice 
Department.
    Senator Menendez. Okay, let me ask you this. Continuing on 
the line of extraditions, here is something hopefully you can 
help me with, Joanne Chesimard. You have been negotiating on 
the Cuba reengagement. I see nothing on Joanne Chesimard. I see 
nothing on others, such as the killer of the New Mexico state 
trooper. She is on the FBI's 10 most wanted terrorists list.
    So as our top diplomat right now for Latin America and the 
Caribbean, can you explain the lack of progress for efforts at 
extraditions, whether it be El Chapo or whether it be Joanne 
Chesimard or the killer of the New Mexico state trooper?
    Is this not a national security imperative for the State 
Department?
    Ms. Jacobson. Extraditions are an incredibly important tool 
to fighting crime and getting back people who are high 
priorities for the United States. We have had significant 
numbers of extraditions from Mexico in the past and, as you 
know, from many other countries in the hemisphere, including 
Colombian and others. We have also had expulsions from Cuba 
since 2010 of those that we wanted back in the United States 
for crimes.
    As I said before, Joanne Chesimard's case, in particular, 
and I am from New Jersey and I know the case well, is raised 
every time we talk to the Cubans. It has been raised at 
extremely high levels with the Cuban Government. There has not 
been a satisfactory response yet, and we will continue to raise 
it in the law enforcement talks that we will now be having.
    Senator Menendez. Well, I understand the Cubans are going 
to talk to you about it. They will talk to you about it ad 
infinitum because they say she has political refugee status in 
their country, and, therefore, that is not really a bargaining 
chip.
    I just do not understand how we turn over three convicted 
spies and cannot get one convicted cop killer back from Cuba.
    Let me ask you, continuing on the national security threat 
issues, I have seen that Diosdado Cabello, the head of 
Venezuela's national assembly, is the target of a series of 
investigations by U.S. Federal prosecutors and the Drug 
Enforcement Agency. Putting aside recent meetings by the State 
Department and pictures with Cabello, I am concerned that the 
investigations are bringing into greater focus how the drug 
trade is penetrating the highest levels of the Venezuelan 
state.
    So is the current situation in Venezuela a national 
security threat to the United States?
    Ms. Jacobson. I think that the current situation in 
Venezuela is of great concern to the United States. Whether it 
is a national security threat to the United States, I would not 
say. We have made clear, as we did in the sanctions----
    Senator Menendez. You would say it is not a national 
security threat?
    Ms. Jacobson. I would say it is a national security threat 
in the sense that drug trafficking is overall a national 
security threat to the United States. As we have said in our 
reports annually, the Government of Venezuela is not 
cooperating with us on that issue.
    Senator Menendez. Okay, so what has changed from your 
testimony on May 8 of last year when I asked you a very similar 
question and your answer to me was, ``I think the answer to 
that question is that it is a very serious concern to us, a 
national security threat.''
    Ms. Jacobson. Well, as I just said, I think drug 
trafficking overall is a national security threat to the United 
States.
    Senator Menendez. I was not asking about drug trafficking 
overall in that question, nor in this question. I was asking 
you about Venezuela.
    You told me on May 8 of 2014 that it was a national 
security threat. Why is it less so today?
    Ms. Jacobson. Whether the words are exactly the same this 
day or then, I think the concerns that we have about Venezuela 
and about drug trafficking are the same. We have concerns about 
how much drugs may be coming through or out of Venezuela into 
the United States, and we are going to continue to act to keep 
them from coming in.
    Senator Menendez. I think even the President in his 
determination cites a national security threat.
    One last question, when I have individuals who are brought 
before the committee for the advice and consent of the Senate, 
I take it very seriously. And one of the elements that I take 
very seriously is that I am going to get fair, honest, 
transparent answers to my questions so that I can make 
judgments on the issues that I am called upon as a United 
States Senator and as a senior member of this committee to make 
judgments on.
    When in a hearing on Venezuela, the same hearing where you 
told me it was national security threat, I asked you whether or 
not the opposition in Venezuela, as you had stated, was 
actually opposed to us pursuing sanctions, and your answer to 
me at that time was that the opposition elements engaged in the 
current dialogue have suggested we refrain from sanctions 
against individuals guilty of human rights violations.
    Now that was not the case, and you ultimately made it very 
difficult for me at a moment that I was trying to understand 
what would be the consequences of sanctions. I thought that the 
sanctions that the President ultimately signed were the right 
ones, but you created a doubt in me, a doubt that should not 
have been there because then I heard a chorus from the 
opposition in Venezuela who said, no, we never said that.
    So if I am going to look to advise and consent and vote 
affirmatively for someone, I need honest and open and 
transparent answers. And I do not feel that I got that from you 
at that time.
    So can you explain to me why I should feel that if I were 
to vote for you to be the U.S. Ambassador to Mexico, a country 
with which we have a critical relationship on a whole host of 
issues, that I would feel that I was getting open and 
transparent answers?
    Ms. Jacobson. Senator, I guess one of the things I would 
say is I would look to the response of the opposition after 
these sanctions were passed when they publicly rejected those 
sanctions. And I would suggest that there were different 
answers from different members of the opposition, and they were 
in an extremely difficult situation. And what I told you was 
what I had heard from some of them.
    But after it was said publicly, it put them in an extremely 
difficult position, which I had not intended to put them in. 
But it was never a misstatement to you of what I had heard.
    Senator Menendez. Well, you asked to clarify the record, 
and even your clarification then is not what you are telling me 
now. When you asked to clarify the record, which I allowed you 
to do when I was then the chairman, you said I would like to 
clarify one point I made during the hearing, the opposition 
elements engaged in the current dialogue have not specifically 
suggested we refrain from sanctions against individuals guilty 
of human rights violations.
    Ms. Jacobson. Because those in the dialogue had not. It was 
others who were outside the dialogue. And that was why I did 
not want to cause problems for those who were within the 
dialogue.
    Senator Menendez. But you did not even, in your 
clarification, give me that statement that you gave me now.
    So I have a real problem in one of the most important 
assignments in the Western Hemisphere, other than the one that 
you presently possess, about whether I am going to get open, 
honest, and transparent answers. That is a problem for me.
    Mr. Chairman, thank you.
    Senator Flake. Thank you, Senator Menendez.
    I think Senator Rubio is on his way back and we have to go 
vote as well. We will go for a minute.
    Mr. Mulrean, Haiti, how are we doing in terms of recovery 
efforts? And how is the country, the government responding? 
What do you see as your main challenge there?
    Mr. Mulrean. Thank you, Mr. Chairman.
    I think what we see in the last year or two in Haiti is a 
series of improvements in the general situation, particularly 
if you look at the post-earthquake situation.
    The health and economic indicators are up. The security 
situation has improved. Private investment has outpaced donor 
assistance for the last 3 years. And even some polling 
indicates that Haitians feel that they are better off now than 
they were preearthquake.
    I think what this indicates, Senator, is that Haiti is 
moving past the post-earthquake crisis relief and into a better 
place, but a place that will still require long-term 
development and support by the international community.
    There are a lot of things that still need to be done. There 
has been basically a political impasse between the executive 
and the legislative branch, which has resulted in the need for 
elections now coming up this fall.
    The problem with this impasse is that it has prevented some 
very important legislation from moving forward.
    So the immediate concern, were I to be confirmed, Senator, 
is the impending elections that will begin in August. In 
October, you will have legislative, Presidential, and local 
elections going on. I think for Haiti to move forward truly 
into its development phase, you need to have an executive and 
legislative branch that are willing to work together and take 
some of the difficult decisions.
    Senator Flake. What areas is USAID working in, in terms of 
economic development?
    Mr. Mulrean. Senator, Congress has been very generous post-
earthquake with Haiti. You have allocated $4.1 billion to 
Haiti, 80 percent of which has been dispersed. All of the 
humanitarian assistance is now completed. Where we are is the 
focus is on the development and recovery assistance that is 
focused on the economic, social, rule of law, and governance 
areas.
    I think it goes without saying that while things are better 
in Haiti, economic growth has been in the 3 percent, 4 percent, 
5 percent range, the last few years, to make a dent in Haiti in 
the poverty and unemployment, it needs to be 7 percent or 8 
percent. So what needs to really move forward well is economic 
growth. There needs to be better investment.
    Again, this goes back to a certain extent to the need for 
political will to move forward. They need a new business code. 
There are critical pieces of legislation on property rights 
that need to move forward.
    Senator Flake. Ms. Dogu, with Nicaragua, what are the main 
areas of focus there for our development assistance?
    Ms. Dogu. The main area of focus, Senator, will be 
strengthening democratic institutions and rule of law in the 
country. We are also going to be focusing on economic 
integration with Central America as part of the Central 
American strategy. We feel that it is very important that 
Nicaragua integrates itself economically with its neighbors and 
that all of Central America has a chance to compete together on 
the global front.
    In addition to that, of course, if I am confirmed, one of 
my top priorities immediately upon arriving in the country 
would be the safety and security of the people who work with me 
there in the country, both the official Americans and their 
families and the private citizens that are in the country. And 
I would be focused on that immediately upon arrival, just to 
make sure that we are prepared in case of any emergency.
    Senator Flake. Thank you.
    I have to run to vote, but let me just say, all four of you 
are foreign career Foreign Service officers, and one of the 
great parts of this job is to be able to meet with many. I 
chair the Africa Subcommittee so I meet with almost all of the 
career Foreign Service officers going to those countries. But I 
am so impressed with the professionalism that I see and the 
commitment to service that all of you exhibit. And I have not 
had an occasion to work with three of you, but Ms. Jacobson I 
have, and I have seen that professionalism. I have seen that 
commitment.
    And I just appreciate all that you do and for your service 
and for your families as well. I know they sacrifice a lot to 
have you in this position.
    So thank you for your service, and I look forward to 
continuing the process here.
    Senator Rubio [presiding]. Thank you.
    Unless more members come, we are going to reach a 
conclusion here fairly soon, which I am sure none of you will 
be offended if you are not the subject of a lengthy hearing. 
But I did have some questions I wanted to touch base. Some are 
a little bit broader.
    I did want to revisit for a moment, Venezuela, Ms. 
Jacobson. I cut short my questioning because I wanted to get to 
all of the nominees.
    I am not saying that this is something that I have been 
told. I am just curious, and I think it is important for the 
record. Are you aware of any assurances that Counselor Shannon 
or any U.S. official made, including persons in the White House 
or the NSC, to representatives of the Venezuelan Government 
that the United States is going to refrain from applying 
additional sanctions on human rights violators or corrupt 
persons? Have any such assurances been made by anybody that you 
are aware of in the U.S. Government?
    Ms. Jacobson. Not to my knowledge, no.
    Senator Rubio. Okay.
    I want to get broader, and that may involve a number of the 
countries involved, but particularly Nicaragua and Mexico. As 
we look at the Western Hemisphere, there are two competing 
camps that seem to have emerged, at least in my view, and I 
would like to have your comment on it.
    One is kind of the pro-American, I would say, but 
friendlier to our interests, camp of nations, and you see 
prosperity in these countries. Of course, Peru and Chile, 
Colombia, Panama, and I would include Mexico in that group of 
countries that are a key part of a kind of prosperous future 
for the Western Hemisphere, all of which have made substantial 
gains. They still have challenges. Colombia has significant 
challenges. Mexico, we have talked about some of their 
challenges as well.
    And then there is the second group that has emerged and 
they, on the other hand, are heading in the opposite direction, 
in many respects. Obviously, Cuba for a long time but 
Venezuela, Bolivia, Ecuador, and oftentimes Nicaragua is in 
that camp as well.
    And so let me begin, and I do not want to make your job any 
harder than it is going to be, if confirmed, but I do have 
serious questions and I think many of us do about the 
legitimacy of the elections that they have conducted there in 
the past and the general attitude of the Nicaraguan Government 
towards the United States of America. On the one hand, they do 
allow U.S. investment of U.S. firms and companies. There is 
travel there. There is engagement, in that sense. On the other, 
their government is less than cooperative on a host of issues 
and, in fact, they have now expressed a willingness, for 
example, to allow the Russians to increase military cooperation 
with them and even pay an increased number of port visits, et 
cetera.
    Ms. Dogu, how would you describe our relationship with 
Nicaragua today? Obviously, they are not an ally in the 
traditional sense of the word. But how would you describe our 
current situation when it comes to their government versus the 
United States, and the relationship between us at this moment?
    Ms. Dogu. Mr. Chairman, I think you actually described it 
quite well.
    It is a very complex relationship. We do have some stresses 
in the relationship, but we also do have areas where we are 
able to cooperate quite well together.
    On the stress side, obviously, we are concerned about some 
of the things that you mentioned in terms of the lack of free 
elections and the lack of space for people in the country to 
have a dialogue about the choice that they would have for 
leaders of the country.
    On the economic side, however, we cooperate well. We are 
their number one trading partner. They are part of the Central 
American Free Trade Agreement. Since they joined the Central 
American Free Trade Agreement and that went into effect, their 
trade with the United States has increased by about 165 
percent. Trade from the United States to Nicaragua has also 
increased fairly significantly.
    Interestingly, even on the law enforcement side and on the 
counternarcotics side, we have been able to find an opportunity 
to work together. On the counternarcotics side, we do have 
cooperation with the Government of Nicaragua, small funding 
that goes to them through the Department of Defense and through 
DEA.
    So we do have some areas of cooperation on the law 
enforcement side. They have actually removed from their country 
two fugitives that were on the FBI top 10 list last year in 
2014.
    So I think the challenge for me, if I am confirmed, sir, 
will be to continue to find those areas where we can cooperate 
together and to go ahead and work very carefully and closely to 
address the areas of concern where we do not get along so well. 
And I can commit to you that I will do that and it will be a 
high priority for me, if confirmed.
    Senator Rubio. And then, Ms. Jacobson, let me just first 
ask you about the broader region. I described these sorts of 
competing camps that have emerged.
    Mexico I think is a key linchpin to that. In my 
recollection, they are if not the largest among the largest 
economies in the region, certainly in comparison to some of the 
smaller countries. They have always also had a significant 
influence in the multinational organizations that characterize 
the region.
    As Mexico continues to grow and prosper, do you view them 
as a nation, as a government, willing to play more in the 
regional leadership category? Are they prepared, for example, 
to play a greater role in what is happening with human rights 
violations and elections that are upcoming in Venezuela? Are 
they prepared to address some of the challenges that are being 
faced to their south, which they are impacted by, in the 
Northern Triangle countries? How would you characterize their 
willingness to become a more active participant as a regional 
leader, which is really their role in that region, rightfully?
    Ms. Jacobson. I think that is an incredibly important point 
for Mexico. Mexico for many, many years had a very, very strong 
role, especially on the economic side with Central America. I 
think to some extent during Venezuela's heyday of high oil 
prices in Petrocaribe, Mexico was pushed out of that sphere a 
little bit.
    They have reasserted their engagement on Central America. 
They have reasserted it on economic issues in greater 
engagement with the Central American countries.
    They have reasserted it on energy, which is extremely 
positive. There are gas pipelines being built between Mexico 
and Guatemala. We know that energy prices in Central America 
are as much as 10 times higher than they are in the United 
States. This affects their productivity and all of the other 
ills that we see reflected in migration.
    So Mexico's greater engagement with Central America and its 
leadership there is critical. But beyond that, I think they can 
play more of a role. Mexico, as it opened up and began to be 
more confident as a democracy opening up to U.N. human rights 
organizations and the Inter-American Commission on Human Rights 
organization system, needs also to play that role regionally. 
There are Mexican members of the Inter-American Commission on 
Human Rights now, and it would be great if Mexico felt more 
confident in playing that role regionally with South American 
countries or elsewhere.
    But I also think it is significant beyond regionally that 
President Pena Nieto talked about Mexicans being involved in 
peacekeeping for the first time when he was at the U.N. General 
Assembly last fall. That is another place where I think Mexico 
can begin to make a contribution in leadership, including in 
the region.
    Senator Rubio. The general state of affairs in Mexico, 
obviously for years some have viewed Mexico as a source of 
cheaper labor, as a place where businesses move operations 
because it might be less costly to do business there, as a 
source of migration to the United States in massive numbers. 
But over the last few years, all those factors have begun to 
change. In fact, there is an emerging middle class in Mexico 
now with significant consumer power and there are significant 
pockets of prosperity emerging within parts of Mexico as they 
help continue to try to make this transition to a more 
prosperous future.
    How would you describe the state of affairs in Mexico 
today? Is it a country headed in the right direction, 
obviously, with significant challenges? Is it a country that 
remains the way I just characterized it, that some view as a 
place that--because, for example, as we have seen in some 
reports, net migration from Mexico significantly declined. 
Partially, I would imagine, due to the economic downturn in the 
United States, but also partially if not primarily due to the 
fact that now there are income and employment opportunities in 
Mexico today that did not exist.
    So what are the drivers of this growth? And what do they 
need to do next to continue those trends?
    Ms. Jacobson. I think there are a number of things. One, to 
be honest, is out of their control. And that is demographics. 
The Mexican population is aging to some extent, as the U.S. 
population has. And we know that people do not migrate beyond a 
certain age, in terms of illegal migration or undocumented 
migration.
    But the other is that the Mexican Government has been 
extremely focused, as was the Calderon administration, on 
education. And that is crucial to them sustaining the movement 
of large numbers of people into that middle class.
    And they know that as we work on education jointly--and we 
have expanded our educational cooperation dramatically. Last 
year, there were hundreds of Mexican teachers who came to the 
United States for advanced English studies to go home and teach 
English in Mexico. This is part of the President's 100,000 
Strong in the Americas and a joint bilateral program with 
Mexico that we have launched.
    And I think we are looking at ways to improve the 
educational exchanges but not just at the very high, top 4-year 
level. Mexico has developed a series of ``politecnicos,'' which 
are more akin to vocational training or community colleges, to 
really educate and train the gap between those who go through 
K-12 but are not necessarily going to go to a 4-year 
university, but get involved in manufacturing jobs that now 
require more than just a high school education in Mexico as 
well.
    And I think that is really the focus of Mexico, on 
education moving forward, because I would agree with the first 
characterization you gave of Mexico as an increasingly, I guess 
it was the second one, an increasingly middle-class country 
with really important pockets of progress that need to be 
expanded to the rest of the country.
    The economic and structural reforms that this 
administration passed in Mexico in its first year in office are 
really critical, but now they have to implement those reforms 
and keep moving forward with education and with fiscal reforms 
and telecommunications and energy openings to provide the kinds 
of jobs that will continue the growth for both our economies.
    Senator Rubio. You signaled demographic trends in Mexico, 
and it is an interesting point. Their immigration policies are 
much more stringent than ours. That is correct. In essence, it 
is a lot easier to immigrate legally to the United States than 
it is to immigrate legally to Mexico.
    So the question then is, on the issue of migration, as they 
continue to develop in this direction, is it your sense that 
this is a country more willing, a government more willing, to 
cooperate with the United States to stem the flow of illegal 
migration across their northern border than they were 5 or 10 
years ago?
    There is a sense among some that I partially share that 
because of the high level of remittances from the United States 
back to Mexico that there has been interest in the past in not 
discouraging migration as a source of remittances back to the 
United States. But is there now a sense that for the first time 
in a while, the Mexican Government is starting to realize 
increasingly that the instability on their northern border is 
attracting migration on their southern border and on their 
coasts, and present security challenges to Mexico not just to 
the United States? And if so, do you think now there is an 
opportunity to work even closer with them to establish the 
sorts of improvements we need on both sides of the border to 
solidify that situation further?
    Ms. Jacobson. What I can say, Mr. Chairman, is I think that 
the Mexican Government does realize the threat to both the 
economic situation and to the border, both northern and 
southern, that undocumented or uncontrolled migration creates, 
both from other people using Mexican territory to traverse to 
come to the United States as well as Mexicans entering the 
United States undocumented.
    I think the cooperation has been really quite good in 
recent years. But I will say that it has been amped up 
recently, and there is a real sense in Mexico, I think, that as 
others use their territory to try to get to the United States, 
and their own economic situation improves, they could decide to 
stay in Mexico. And so it is in their interest to work on 
orderly and safe and legal migration with protections for 
people, of course, the same way it is for us.
    Senator Rubio. My final question, because we are nearing 5 
o'clock, again, for you, Ms. Jacobson, because we may not see 
you again in your current capacity before the committee, I know 
you have been involved in the negotiations that ultimately have 
led to the announcement of mutual embassies in Washington and 
in Havana. Ironically, just a few days after that announcement 
was made, I think the Sunday after the 5th of July, there were 
once again mass detentions in Nevada. The Ladies in White, 
there was one peaceful demonstrator who had his nose fractured, 
and was beaten.
    And it goes back to the situation about this Embassy. What 
kind of Embassy are we going to have in Havana? I know that the 
argument has been that we are going to have an Embassy in 
Havana the way we do in other countries that have unfriendly 
governments and that approach. But I do think we have now taken 
this massive step, the President has, of diplomatically 
recognizing that government as a legitimate form of government. 
Although we, certainly, have qualms about how they operate, the 
President has given them diplomatic recognition and opened this 
Embassy.
    What kind of Embassy is this going to be? It appears to me 
from what has been announced that the employees of that 
Embassy, other than the American diplomatic employees, the 
people who clean, the people who do the service work, will 
always continue to be hired from an agency controlled by the 
Cuban Government. It is my understanding that there will 
continue to be a significant security perimeter that could 
discourage people from coming to the Embassy to appeal for 
assistance from the United States. It appears that all but two 
members, and maybe I am wrong about the number, but there will 
be significant limitations on the ability of U.S. diplomats to 
use the Embassy to travel throughout the country and engage 
with people. And there apparently will be significant 
limitations on the ability to deliver enhancements to the 
technological capabilities of that facility.
    So, in essence, other than the name on the door, what will 
be different about this facility than the interests section 
that we have there now?
    Ms. Jacobson. Thank you, Senator.
    It was very important, as we discussed this opening of 
embassies and reestablishment of diplomatic relations, that we 
be absolutely certain that we can do our jobs under the Vienna 
Convention as we see them, which include being able to get out 
into the country and talk to people, certainly more than just 
two people but others within the Embassy, and that we ensure 
that the Embassy is a place that people can come to, Cubans can 
come to, because Americans have never really had great 
difficulty if they are in Cuba.
    And I can assure you that what we will be doing and the way 
we will be operating is significantly different than we have 
been operating as an interests section. The security presence 
outside the interests section has already been reduced and the 
agreement on that is a significant reduction in security 
presence outside the future Embassy, such that we hope people 
will not feel nearly the same kind of presence or threat, and 
there will no longer be Cuban Government screening or names 
taken for people to enter the U.S. Embassy. That will be 
something, as we do all over the world, that we do, not the 
host government.
    The ability to travel is similar to our restrictions in 
many other places around the world. There are a number of 
people at the Embassy who will be--it is more than two, as a 
matter of fact--who will be able to travel without any pre-
notification. But others will be able to travel on a certain 
number of days' notification, but they will no longer have to 
ask permission. That is quite significant, because we 
previously had to ask for approval. Now it is only a 
notification, and then we go.
    So that is really quite significant in enabling us to get 
out and travel.
    We also have had almost no ability to get sensitive 
shipments into our interests section. They had all but stopped. 
We have made a very good start on reprovisioning the interests 
section, and we will continue to have talks thereafter about 
future shipments.
    So in many of the ways, all of the ways that we laid out 
that were important to us to begin to operate more like 
everyplace else that is a restrictive environment, we made 
enormous progress from where we are now.
    Senator Rubio. Well, I want to thank all the nominees for 
being here with us today. I appreciate it very much, and your 
patience in the back-and-forth of people coming in and out. 
Again, we look forward to continuing to review your 
nominations.
    You may receive written questions and follow-up from 
members of the committee, and I encourage you to promptly 
respond to those as quickly as possible, since a delay in that 
response could delay a final vote in consideration by the 
Senate.
    So again, I want to thank all of you for your service to 
our country and for your willingness to continue to serve. And 
with that the committee stands adjourned.
    I apologize, a reminder that the record will be open until 
Friday at the end of the business day.
    Thank you. The committee is adjourned.
    [Whereupon, at 4:54 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Roberta S. Jacobson, Nominated to be Ambassador to the 
   United Mexican States, to Questions from Members of the Committee

               ambassador-designate jacobson's responses 
                    to questions from senator corker
    Question. Mexico has made significant progress integrating with 
North American and global supply chains, generating economic 
opportunities. Deepening and sustaining the benefit of these policies 
and recent significant policy reforms will require the rule of law.

  <diamond> Where does Mexico stand in implementing its ambitious 
        judicial reform and how can you, as Ambassador, properly 
        support this key step forward for Mexico?

    Answer. Mexico's 2008 constitutional mandate requires all levels of 
government to transition from an inquisitorial to an accusatorial 
justice system by June 2016. The new system will include open trials, 
leading to greater transparency and efficiency, and decreasing the 
reliance on confessions, which has been tied to human rights abuses. It 
will also aim to prevent and punish impunity and abuses more 
transparently and effectively.
    Under the Merida Initiative, the U.S. Government is providing tens 
of millions of dollars in assistance to support the transition of 
Mexico's judicial system at the federal and state level. Moreover, as 
the U.S. and Mexican economic relationship continues to mature the 
protection of property rights, including intellectual property rights 
(IPR), is critical for investment, growth and prosperity. We are our 
pursuing these objectives through our initiatives under the High Level 
Economic Dialogue.
    If confirmed, I will do all I can to promote U.S. cooperation and 
assistance to support the Government of Mexico's justice sector reform 
efforts and the rule of law.

    Question. Mexico has recently been helpful in deterring 
undocumented migration from Central America, including unaccompanied 
minors. Will this effort by Mexico to interdict and repatriate 
undocumented migrants be sustainable over time?

    Answer. Cooperation with Mexico on migration issues has been 
excellent. In June 2014 and in January 2015, President Pena Nieto 
expressed his commitment to President Obama to return children safely 
to their families in Central America, build Central American capacity 
to receive returned children, and address the underlying factors 
driving migration. We believe Mexico's increased enforcement, including 
against human smuggling, as well as its efforts to share best practices 
on migration management with Central American governments have been 
significant factors in reducing the number of migrants apprehended by 
U.S. immigration officials at our southern border.
    To help sustain Mexico's efforts, the United States is working with 
the Mexican Government to disrupt the organized criminal networks 
facilitating human smuggling, including through the provision of 
training, technical assistance, equipment, and coordination in support 
of Mexico's efforts to strengthen enforcement in its southern border 
region.

                               __________
               ambassador-designate jacobson's responses 
                   to questions from senator menendez
    Question. The TPP negotiations are in their final stages and many 
have high expectations that weaknesses in Mexico's labor laws will be 
addressed. Can the TPP really address the challenges to labor rights in 
Mexico without amendments to Mexican laws? Should these changes take 
place prior to the agreements' entry into force?

    Answer. In order to meet the labor standards in TPP, each TPP 
country will need to have laws and practices consistent with the 
International Labor Organization's Declaration on Fundamental 
Principles and Rights at Work, which includes freedom of association 
and the effective recognition of the right to collective bargaining, 
the elimination of all forms of forced or compulsory labor, the 
effective abolition of child labor, and the elimination of employment 
discrimination. TPP also includes requirements for countries to adopt 
and maintain laws and practices on minimum wages, hours of work, and 
occupational safety and health. On questions related to the 
negotiations and TPP's entry into force, I would refer you to the 
Office of the United States Trade Representative.

    Question. Although the administration has indicated support for 
strengthening the labor rights provisions of the NAFTA, U.S. support 
for labor capacity-building programs in Mexico historically has been 
inadequate relative to the situation. For example, USAID has only one 
labor capacity-building program in Mexico, the Global Labor Program, 
which is scheduled to end in January 2016. Both USAID and the 
Department of State have so far been unwilling to use their trade 
capacity building funds to increase support for labor capacity programs 
with trade unions in Mexico.

  <diamond> If confirmed, how will you ensure that the United States 
        provides sufficient attention and funding for labor capacity-
        building programs in Mexico, so that Mexico can fulfill the 
        labor rights commitments it has made in trade agreements with 
        the United States?

    Answer. The administration is working to identify needs and ensure 
that there will be appropriate labor capacity-building plans in place 
for TPP partners to support their efforts to improve protection of 
labor rights, particularly those related to the International Labor 
Organization's Declaration on Fundamental Principles and Rights at 
Work.
    As you note, some related work is already underway in Mexico. 
USAID/Mexico is supporting a pilot project to reform Mexico's labor 
arbitration courts through the Mexican Competitiveness Institute 
(IMCO). USAID also provides capacity-building funding to the Solidarity 
Center. The Solidarity Center programs in Mexico seek to strengthen the 
independence and democratic structure of labor unions in key sectors of 
the Mexican economy in strategic locations, with the overall goal of 
improving their ability to democratically represent workers, address 
issues of corruption and increase economic transparency and citizen 
participation. If confirmed, I will continue to support such programs.

    Question. Over the past year, the United States has struggled in 
its response to the refugee crisis of unaccompanied children arriving 
on the Southwestern border. In 2015, the number of unaccompanied 
children arriving to the U.S. is down, but emerging evidence suggests 
this has less to do with the response by the U.S. and Central American 
governments, and more to do with Mexico's actions. While Mexico's 
participation in addressing this refugee crisis is vital, increasingly 
it appears that vulnerable children migrants detained in Mexico may not 
be receiving screening for international protections that they deserve.

  <diamond> If confirmed as Ambassador, how would you work with the 
        Mexican Government to ensure that the flow of migrants through 
        the country is handled in a manner in which ensures the rights, 
        protections, screening and appropriate care of all individuals?

    Answer. The U.S. Government engages regularly with Mexican 
authorities on immigration issues, including border security, 
repatriation, enforcement, and migration of unaccompanied children. 
Recognizing the significant increase of Central American migrants, 
particularly unaccompanied children, transiting Mexico en route to the 
United States in 2014, the U.S. Government engaged with the Mexican 
Government to develop better ways to cooperate on this important issue.
    I am aware of reports expressing concern over the inadequate 
protection of the human rights of migrants apprehended and repatriated 
by Mexican authorities. We discuss these issues with our Mexican 
counterparts on a regular basis. On February 25, 2015, the Department 
convened the third meeting of the U.S.-Mexico Repatriation Strategy and 
Policy Executive Coordination Team (RESPECT) to continue efforts to 
align U.S. and Mexican resources and to ensure the safe and humane 
treatment of migrants. If confirmed, I will continue to raise these 
issues and concerns at the highest levels of the Mexican Government, 
and work to identify ways the U.S. Government can best assist Mexican 
authorities.

    Question. How can the State Department and U.S. Embassy Mexico City 
support advances in the Government of Mexico's search for the more than 
20,000 people who have disappeared or gone missing over the past 
decade, including the case of the 43 disappeared students in Iguala?

    Answer. The issue of the missing and disappeared is a significant 
human rights problem in Mexico, as we noted in our 2014 Human Rights 
Report. A database of names is an essential tool in addressing this 
challenge and, while Mexico's National Registry for Missing and 
Disappeared Persons exists, it is incomplete and imperfect. President 
Pena Nieto has pledged to support both a national missing persons 
database and a national genetic information database.
    I led the U.S. delegation to the Bilateral Human Rights Dialogue 
(BHRD) last year, where my Mexican counterparts shared the challenges 
they faced in collecting, verifying, and managing the registry.
    We have provided significant expertise that can be brought to bear 
here. Forensics and crime-scene investigation trainings, for example, 
share many of the fundamentals that are required to collect the 
evidence necessary to resolve cases.
    Regarding Iguala, I have been following the tragic events involving 
the disappearance, and presumed killing, of up to 46 students in the 
state of Guerrero in September 2014. We have met with Mexican officials 
to express our concerns and offer assistance to resolve this case. My 
thoughts and sympathies remain with the families and friends affected 
by the loss of loved ones. This horrific crime requires a full, 
transparent investigation and the prosecution of all responsible.
    Mexican authorities have undertaken such an investigation and 
detained nearly 100 suspects. The Mexican Government has sought the 
assistance of a group of independent experts under the auspices of the 
Inter American Commission on Human Rights. We strongly support the 
experts group, whose mandate includes making recommendations to the 
Mexican Government about reforms that will help prevent disappearances.
    The problem of disappearances underscores the importance of our 
partnership under the Merida Initiative: supporting Mexican efforts to 
enhance the professional capacity of the Mexico's justice sector 
institutions, thus ensuring accountability and increasing public trust.
    We value our collaborative law enforcement relationship with Mexico 
and, if confirmed, I will make our cooperation on advancing the rule of 
law in Mexico among my highest priorities.

    Question. The Government of Mexico has informed media outlets that 
it did not receive a formal, completed extradition request for Joaquin 
Guzman until June 2015. Please describe why this request was not 
submitted to the Mexican Government until nearly 16 months after 
Guzman's arrest. What role did you play in the interagency process to 
advocate for submitting a request for Guzman's extradition? What role 
did you play in advocating that the Mexican Government respond 
affirmatively to the U.S. request for extradition?

    Answer. While the United States does not usually comment on pending 
extradition requests before they become public judicial proceedings for 
law enforcement and security reasons, it is the practice of the United 
States to seek extradition whenever defendants subject to U.S. charges 
are apprehended in another country.
    Pursuant to the U.S.-Mexico Extradition Treaty, in advance of 
submitting a full extradition request either country may seek from the 
other a provisional arrest warrant for a fugitive. The treaty further 
contemplates that, after the fugitive has been arrested, a full 
extradition package will be submitted. We can confirm that, at the 
request of the United States, Mexico issued such a provisional arrest 
warrant for Joaquin ``Chapo'' Guzman Loera more than a decade ago and, 
that subsequent to the arrest of Guzman Loera, the United States 
submitted a full extradition request to Mexico. The Department of State 
is part of the interagency review process for all extradition requests.
    The U.S. Government has been clear since Guzman Loera's initial 
arrest about its desire to hold him accountable for his crimes in the 
United States. Even had the Mexican Government immediately agreed to 
extradite Guzman to the United States following his February 2014 
capture, in all likelihood, he still would have been in a Mexican 
prison on July 11. He would have undoubtedly fought the extradition 
request in the Mexican legal system, as is his right under Mexican law. 
And the Mexican justice system would still have been preparing its 
prosecution and trial, based on its stated intent to ensure he faced 
justice in Mexico before the United States. Mexico's former attorney 
general made very clear from the beginning of the Pena Nieto government 
that Mexico wanted to prosecute Guzman in Mexico for crimes committed 
against the Mexican people before considering any extradition request. 
That is Mexico's sovereign right and permitted under our bilateral 
extradition treaty.

                               __________
               ambassador-designate jacobson's responses 
                    to questions from senator rubio
    Question #1. Assistant Secretary Jacobson, during your testimony to 
the House Committee on Foreign Affairs in May of 2010, you spoke about 
the administration's vision for a ``21st century border.'' You stated 
that the objective of this new border would be to intercept threats 
before they even reach the border.

  <diamond> Would you be able to describe further how that vision has 
        been achieved today?
  <diamond> If confirmed, what will be your comprehensive antidrug 
        strategy with Mexico?

    Answer. We have made significant steps to modernize and strengthen 
our shared border through both the Merida Initiative and our 21st 
Century Border Management Initiative. Under the 21st Century Border 
Management Initiative, the United States continues to work to reduce 
border wait times by expanding infrastructure capacity, including 
through public-private partnerships, and by improving the efficiency of 
the inspection process. We saw the completion of the first phase of our 
expansion at the busiest land port of entry between our two countries 
in November 2014, the San Ysidro-El Chaparral border crossing between 
San Diego and Tijuana, which more than doubled the number of inspection 
booths and significantly reduced vehicle wait times from 3 hours to as 
little as 30 minutes. Likewise, in October 2014 we inaugurated an 
improved port of entry at Nogales, AZ, through which 40 percent of 
Mexican produce bound for U.S. supermarkets passes. We are finalizing a 
pilot program this year for cargo preinspection at three different 
sites on our border, which will allow U.S. and Mexican customs agents 
to work side by side to inspect and clear cargo simultaneously. This 
will notably increase cargo inspection efficiency at the border.
    The United States has expended more than $1.4 billion in equipment, 
training, and capacity-building, including that dedicated to 
modernizing and securing our shared border since the Merida Initiative 
began in 2008. With support from Merida, Mexico has built a stronger 
legal framework, augmented specialized security forces, improved the 
detection of movement of narcotics, arms, and money, instilled a 
growing culture of lawfulness, and is more effectively using law 
enforcement information through the broader application of technology. 
To improve border security, the United States has provided the 
Government of Mexico with over $115 million in fixed and mobile 
nonintrusive inspection equipment (NIIE), maintenance, and related 
detection devices for use at Mexico's points of entry, border 
crossings, and internal checkpoints. With Merida-funded equipment, the 
Mexican Government has seized over $4 billion in narcotics and illegal 
currency. Building upon the Government of Mexico's own investment in 
NIIE and border security infrastructure, Merida assistance has 
significantly bolstered the ability of Mexican officials to increase 
border security and facilitate the flows of legitimate commerce and 
travel, while reducing the movement of illicit narcotics, currency, 
weapons, explosives, black market goods, and undocumented migrants.
    During his visit to Mexico in May 2013, President Obama stood with 
President Pena Nieto and reaffirmed our commitment ``to meet our 
responsibilities--to reduce the demand for illegal drugs, and combat 
the southbound flow of illegal guns and cash that help fuel violence.'' 
This is a fundamental component of our bilateral security cooperation: 
our two countries have a shared responsibility to work together to 
address this problem that affects both of our countries. The United 
States is actively working to prevent the illicit flow of drug profits 
and weapons that strengthen the drug cartels in Mexico and fuel the 
violence. If confirmed, I will continue our efforts under the Merida 
Initiative and in close coordination with law enforcement agencies to 
combat criminal groups involved in the drug trade and the flow of 
illegal drugs through Mexico.

    Question #2. The United States, Mexico and Canada are all involved 
in the Trans-Pacific Partnership (TPP) negotiations along with other 
Pacific region countries.

  <diamond> To what extent might a failure to conclude a TPP impact 
        North American trade relations and industrial competitiveness?

    Answer. The TPP will be the economic centerpiece of a growing, 
dynamic Asia-Pacific region, which includes North America. This 
agreement has the potential to boost economic growth, development, and 
jobs in the United States, Mexico, and Canada and to enhance the 
competitiveness of the North American economy. Conversely, without the 
ratification of TPP, North America will not be as well positioned to 
compete effectively within the Asia Pacific and with the other major 
regions of the world.
    We anticipate success in this endeavor as we are very close to 
completing the negotiations. And with the passage of TPA, Congress has 
given the administration marching orders to conclude a high-standard 
agreement. We are working hard to achieve an agreement that will not 
only support our economic and strategic interests, but also reflect our 
values. As President Obama has said, we must ensure that as the 
economic rules of the road are drawn up for this important region of 
the world, the United States is playing a leading role in shaping them.

    Question #3. In December 2008, Mexico and the United States began 
the Merida Initiative to disrupt the capabilities of organized crime, 
improve the capacity of the Mexican judicial system to administer the 
rule of law, improve border security, and strengthen local communities 
across Mexico.

  <diamond> What is the current status of implementation of Merida 
        Initiative programs in Mexico?
  <diamond> Following the implementation of Merida Initiative programs, 
        has Mexico increased its security cooperation with the U.S., 
        remained the same, or decreased?
  <diamond> Has the U.S. successfully helped Mexico develop independent 
        judiciary/courts systems that is free from political 
        interference? (Why Not?)

    Answer. The Merida Initiative has transformed our bilateral 
relationship with Mexico. We have achieved unprecedented levels of 
bilateral collaboration on a range of issues, including security, 
economic competitiveness, trade, energy, environment, climate, human 
rights, cultural and educational ties, and regional and global issues.
    Since the Merida partnership was formalized in 2008, $2.3 billion 
has been appropriated for the Merida Initiative (FY08-14). More than 
$1.4 billion in equipment, training, and capacity-building has been 
delivered since the Merida Initiative began. Between 2008 and 2014 
Mexico invested about $68.3 billion in security and public safety. That 
means that our assistance has leveraged approximately $28.5 dollars in 
Mexican investment for every $1 dollar of our own appropriations.
    The Merida Initiative is a broad strategy to support the Mexican 
Government's efforts to strengthen rule of law, democratic 
institutions, and community efforts against crime and violence, while 
protecting human rights. The Merida Initiative enables greater 
cooperation between U.S. and Mexican law enforcement agencies, 
prosecutors, and judges as they share best practices and expand 
bilateral cooperation in tracking criminals, drugs, arms, and money. 
The Merida Initiative has contributed greatly to strengthening our 
overall bilateral law enforcement cooperation.
    Mexico's security challenges do not lend themselves to easy or 
short-term solutions. Building institutional capacity for the rule of 
law is crucial to long-term success. Our support for Mexico's ongoing 
judicial reform will help create a more effective, transparent, and 
independent justice system. Continuing our strong security cooperation 
under the Merida Initiative remains a major component of our bilateral 
relationship. If confirmed, I will continue our joint efforts to 
support more capable institutions--especially police, justice systems, 
and civil society organizations--as rule of law is essential to 
Mexico's economic growth.

    Question #4. There have been media reports suggesting that the 
current Mexican administration does not prioritize information-sharing 
as highly as previous Mexican administrations, including a prohibition 
on direct intelligence-sharing between law enforcement groups. Under 
President Nieto, all information must go through a centralized office 
under Mexico's Secretary of the Interior.

  <diamond> Does Mexico regularly accept U.S. security and intelligence 
        assistance when offered?
  <diamond> Has a slowdown in criminal intelligence sharing hindered 
        law enforcement operations in both Mexico and the United 
        States?
  <diamond> Do you support a more robust role for the U.S. military in 
        Mexico to assist the Government of Mexico with training, 
        equipping, and targeting efforts in the fight against the 
        cartels and transnational criminal organizations?
  <diamond> What role can the U.S. military and law enforcement play in 
        helping Mexico secure their southern border with Guatemala and 
        Belize?

    Answer. The United States and Mexico have an extremely close and 
cooperative security, law enforcement, and intelligence relationship, 
one that has expanded over the last 15 years and especially since the 
inception of the Merida Initiative. We have a range of assistance we 
can and have made available to the Government of Mexico, and Mexico 
works closely with us to define the assistance that best responds to 
the government's priorities and the situation on the ground.
    While I would defer to our law enforcement agencies to comment on 
changes in the pace of criminal intelligence-sharing with the Mexican 
Government, I believe we have the mechanisms in place and the close 
institutional and personal relationships for strong law enforcement 
cooperation to more effectively address the transnational criminal 
organizations (TCOs) that threaten both our countries.
    I believe we have the right balance with respect to the role of the 
U.S. military in assisting Mexico in confronting TCOs. The military-to-
military relationship has strengthened in the last few years.
    Our military and law enforcement agencies will continue to play a 
key role in support of Mexico's effort to implement its Southern Border 
Strategy and better secure its borders with Belize and Guatemala. We 
are already working with Mexican agencies to increase their 
capabilities along their southern border as well as to encourage 
greater cooperation and communication between Mexico and its southern 
neighbors.
    If confirmed as Ambassador, I will work to ensure the security, law 
enforcement, and intelligence sectors of the United States work 
together effectively with their Mexican counterparts to advance our 
mutual security interests.

    Question #5. Mexico's most notorious drug lord, Joaquin ``El 
Chapo'' Guzman, broke out of a high-security prison on July 11 for the 
second time, escaping in a tunnel built right under his cell. Recent 
media reports suggest that the DEA had developed intelligence 
suggesting that Guzman and his associates were plotting his escape as 
early as 2014. Mexico's Secretary of the Interior, Osorio Chong, has 
denied that authorities in Mexico were ever informed of potential 
escapes while U.S. authorities contend that they alerted Mexican 
authorities 16 months ago.

  <diamond> Was intelligence about a potential escape by Guzman ever 
        conveyed to the Mexican Government?
  <diamond> Why would Secretary of the Interior, Osorio Chong, claim 
        his office had no warning from the U.S. when his office is the 
        clearinghouse for law enforcement information-sharing?
  <diamond> Did the prohibition of direct intelligence-sharing between 
        law enforcement agencies in Mexico and the U.S. help lead to 
        Guzman's escape?
  <diamond> As Assistant Secretary of State for the Western Hemisphere, 
        were you aware of any intelligence or any other information 
        suggesting Guzman was plotting his escape?
  <diamond> Did you ever personally discuss the Guzman case with any 
        Mexican official? If not, why not?

    Answer. While I cannot comment on the sharing of specific law 
enforcement information in the context of an ongoing sensitive 
investigation, I can assure you I have stayed actively engaged on the 
Guzman case. I and others in the Department and in Embassy Mexico City 
have discussed the Guzman case with Mexican officials and underscored 
the strong interest of the United States in seeking his extradition. 
Mexico wanted to prosecute Guzman in Mexico for crimes committed 
against the Mexican people before taking up consideration of any 
extradition request, which is permitted under our bilateral extradition 
treaty.
    We have a robust law enforcement information-sharing relationship 
with the Government of Mexico. We have engaged them for many months on 
Guzman's case. However, for specific questions related to law 
enforcement information, I must refer you to the U.S. Drug Enforcement 
Administration and the Department of Justice.

    Question #6. Migrants from the Northern Triangle Countries of El 
Salvador, Guatemala, and Honduras have increasingly made their way to 
the United States through Mexico. Since mid-2014, Mexico has stepped up 
immigration enforcement along the major routes traversed by many 
Central American migrants.

  <diamond> How effective have those actions been?
  <diamond> To what extent have those efforts been in response to U.S. 
        pressure?
  <diamond> How is Mexico balancing the need to combat illegal 
        transmigration through its territory with the need to protect 
        migrants' rights and well-being?
  <diamond> What steps has the United States taken to ensure that 
        illegal migrants are treated humanely when being repatriated to 
        their home countries by Mexico?
  <diamond> If confirmed as Ambassador to Mexico, what message will you 
        convey to the Government of Mexico and the people of Mexico to 
        discourage illegal immigration to the United States?

    Answer. Cooperation with Mexico on migration issues has been 
excellent. In June 2014, President Pena Nieto expressed his commitment 
to President Obama to return children safely to their families in 
Central America, build Central American capacity to receive returned 
children, and address the underlying factors driving migration. We 
believe Mexico's increased enforcement, including against human 
smuggling, as well as its efforts to share best practices on migration 
management with Central American governments have been significant 
factors in reducing the number of migrants apprehended by U.S. 
immigration officials at our southern border.
    As I noted during the confirmation hearing, bilateral cooperation 
on migration issues has increased. As the U.S. Government continues to 
secure our border and the Mexican economy improves, the Mexican 
Government realizes that many migrants may choose to stay in Mexico 
instead of trying to enter the United States. Therefore, Mexico has an 
added incentive to continue working with the United States to ensure 
orderly, safe, and legal migration.
    We have seen reports expressing concerns of inadequate protection 
of the rights of migrants apprehended and repatriated by Mexican 
authorities. We discuss these issues with our Mexican counterparts on a 
regular basis. For example, during the third meeting of the U.S.-Mexico 
Repatriation Strategy and Policy Executive Coordination Team on 
February 25, 2015, we discussed ways to align U.S. and Mexican 
resources and to ensure safe and humane treatment of migrants through 
the coordination of repatriation policies.
    If confirmed, I will continue to press the importance of orderly, 
safe, and legal immigration and support the Department's public 
education efforts in the region to discourage illegal migration.

    Question #7. In a previous hearing before the Senate Foreign 
Relations Committee you provided testimony regarding U.S. sanctions 
toward individual human rights violators in Venezuela. During the 
question and answers portion of the hearing, you specifically stated 
that recognized opposition leaders from the MUD (Mesa Unidad 
Democratica) had requested that no sanctions be levied. In fact, you 
repeated the same answer when the question was raised on two separate 
occasions. However, after the hearing, the MUD put out a statement that 
was completely opposite of what you testified to the Senate Foreign 
Relations Committee.

  <diamond> How do you explain this contradiction?

    Answer. Twenty-seven political parties comprise Venezuela's 
opposition; each with different philosophies and strategies. At the 
time of the SFRC hearing in 2014, the government and some members of 
the political opposition were engaged in dialogue facilitated by the 
Union of South American Nations (UNASUR) with the involvement of the 
Vatican. However, other important elements of the opposition, students, 
and other protesters were skeptical of that dialogue and remained 
outside it. We respect all these legitimate, yet distinct, views.
    The opposition elements engaged in that dialogue asked that the 
U.S. Government not act in a way that would undermine it. As I 
testified, we believed that both the timing and any action on sanctions 
should be calibrated in such a way as not to undermine that dialogue--
so long as it offered a realistic chance of progress. It was that view 
that informed our belief that timing was not right for sanctions at 
that time. Regrettably, the Venezuelan Government failed to make any 
concessions in the context of that dialogue, and it ended, prompting us 
to impose targeted sanctions.
    On July 30, 2014 and February 2, 2015, we took steps to impose visa 
restrictions against 56 individuals believed to be responsible for, or 
complicit in, human rights abuses and public corruption pursuant to 
Section 212(a)(3)(C) of the Immigration and Nationality Act.
    On March 8, 2015, President Obama signed Executive Order 13692 
targeting not only persons (i.e., individuals and entities) involved in 
or responsible for actions that limit or prohibit the exercise of 
freedom of expression or peaceful assembly and significant acts of 
violence that constitute a serious abuse or violation of human rights, 
including in response to antigovernment protests, but also those 
involved in public corruption and actions or policies that undermine 
democratic processes or institutions within the Government of 
Venezuela. Seven individuals were placed on the Office of Foreign 
Assets Control's List of Specially Designated Individuals and Blocked 
Persons (SDN List). Consequently, their property and interests in 
property subject to U.S. jurisdiction were blocked, and U.S. persons 
wherever located are generally prohibited from doing business with 
them. The E.O. also suspends the entry into the United States of any 
individual designated pursuant to the E.O.

    Question #8. There have been recent media reports that former 
legislator Maria Corina Machado has been prohibited from running for 
office in Venezuela's upcoming December's congressional elections.

  <diamond> What is the USG's position on this undemocratic measure 
        taken by the Government of Venezuela designed to influence the 
        outcome of the upcoming elections?

    Answer. The United States is deeply concerned about the Venezuelan 
Government's continuing effort to prohibit opponents from participating 
in the political process. Prohibiting select opposition members from 
taking office is an abuse of power intended to silence and punish 
critics. Restricting opposition candidates weakens the electoral 
process and undermines the principle of democratic pluralism. This is 
why I publicly expressed my concern via Twitter upon learning of the 
action against Ms. Machado.
    We join the U.N. High Commissioner for Human Rights (UNHCHR), the 
Inter-American Commission on Human Rights (IACHR), the European Union 
(EU), and the Canadian, Italian, Norwegian, and Spanish Governments in 
calling on the Venezuelan Government to cease efforts to silence the 
political opposition, further weaken democratic institutions, and for 
it to release political prisoners and respect human rights and 
fundamental freedoms, including freedoms of peaceful assembly and 
association.
    We will continue to call on the Venezuelan Government to ensure 
free and fair elections by ceasing harassment of the opposition and 
allowing credible, independent international electoral observation. 
Free and fair elections, an essential element of a healthy democracy, 
require a society that encourages full citizen participation, 
opportunities for all individuals to become candidates, free operation 
of political parties and candidates, and flourishing independent media. 
All these conditions are consistent with the principles and values set 
forth in the American Declaration of the Rights and Duties of Man and 
the Inter-American Democratic Charter.

    Question #9. The Venezuela Defense of Human Rights and Civil 
Society Act of 2014 imposes targeted sanctions on persons responsible 
for violations of human rights of antigovernment protesters in 
Venezuela. In May of last year, you told this committee that the time 
was ``not right'' for sanctions on human rights violators in Venezuela. 
As you know, President Obama eventually signed this bill into law in 
December.

  <diamond> Why has Miguel Rodriguez Torres, the Minister of Interior, 
        Justice, and Peace not been sanctioned under this law?
  <diamond> What about Hugo Carvajal, the head of the Directorate of 
        military intelligence?
  <diamond> What about Diosdado Cabello, President of the National 
        Assembly of Venezuela, reportedly the most corrupt man in 
        Venezuela?

    Answer. The action taken in March was a significant list that holds 
key individuals accountable, including based on involvement in human 
rights abuses and undermining democratic processes or institutions, 
including through public corruption.
    We will continue to monitor developments on the ground and stand 
prepared to take action against others as additional information 
becomes available and is assessed to meet the criteria for sanctions.

    Question #10. Mrs. Jacobson, you were the lead U.S. negotiator for 
the recently announced agreement to reestablish diplomatic relations 
between the United States and Cuba.

    As such, do you fully standby the results of the deal announced by 
President Obama, which you negotiated, to reestablish diplomatic 
relations between the United States and Cuba?
    Do you believe the Obama administration's efforts to reestablish 
diplomatic relations will help preserve the Castro regime and Communist 
one party rule in Cuba or lead to democratic reforms?

    Answer. Yes, I stand by our agreement with the Government of Cuba. 
Our new approach to Cuba will make it easier for the United States to 
advance our interests and result in greater prosperity for the Cuban 
people. For almost 55 years, we tried using isolation to bring about 
change in Cuba. However, as the President stated on December 17, that 
approach was not working. Instead of bringing about change, we ended up 
focusing the international community's attention on U.S. policy rather 
than on the negative effects of the Cuban Government's policies on the 
Cuban people.
    Reopening the U.S. Embassy in Havana and reestablishing diplomatic 
relations are the first steps in a long process of normalization. By 
engaging the Cubans through U.S. Embassy Havana, we will improve our 
access to the Cuban Government and our ability to advance our interests 
on a variety of issues, which include human rights, law enforcement, 
extraditions, counternarcotics, property claims, and the environment. 
Our new approach also allows us greater contact with the Cuban people, 
who ultimately will have the power to choose their own future. In 
recognition of that reality, our diplomats will be able to travel more 
freely around island and engage with the Cuban people more effectively.
    We understand that change will not come to Cuba overnight. There 
may well be setbacks on the path to normalization of U.S.-Cuba 
relations. However, by engaging the Cuban Government in an atmosphere 
of mutual respect, we hope to promote our interests more effectively 
and increase the prospects of the Cuban Government respecting the human 
rights and fundamental freedoms of its own people, thereby becoming 
prosperous and democratic.

    Question #11. Please provide a copy of the agreement you negotiated 
with the Cuban Government to reestablish diplomatic relations outlining 
the key commitments made by each side.

    Answer. From January 21 to July 1, I led a Department team in 
negotiating the conditions under which the proposed new embassies of 
the United States and Cuba in our respective countries would operate. 
That process culminated in the exchange of letters between President 
Obama and President Castro on July 1, 2015, in which they jointly 
agreed to reestablish diplomatic relations and reopen Embassies 
effective July 20. The only legally binding agreement concluded between 
the two countries in the course of these negotiations was an agreement 
to terminate the Interests Section Agreement of 1977, which was 
effected through an exchange of diplomatic notes on July 20.
    Several members of my staff briefed Congress on the key outcomes of 
the negotiations. One example of these outcomes is that United States 
diplomats will be able to meet and exchange opinions with Cubans with a 
variety of voices and views, both within the government and outside. We 
will reciprocally loosen the travel restrictions on both missions. We 
have a good start on diplomatic shipments that will allow us to upgrade 
several physical aspects of the Embassy. Finally, we have agreed with 
the Cubans to review these conditions in the coming year to see what 
adjustments need to be made.

    Question #12. According to Section 201 of the Cuban Liberty and 
Democratic Solidarity Act, it is the policy of the United States that 
diplomatic recognition should be considered ``when the President 
determines that there exists a democratically elected government in 
Cuba.''

  <diamond> Did the President determine that ``there exists a 
        democratically elected government in Cuba?''

    Answer. No, he did not. The President's new direction in policy 
toward Cuba maintains the long-standing objective of empowering the 
Cuban people and promoting a democratic, stable, and prosperous Cuba. 
The reestablishment of diplomatic relations is a key step in 
implementing this updated approach. Having the U.S. Embassy in Havana 
allows the United States to more effectively promote U.S. interests and 
values and increase engagement with the Cuban people.

    Question #13. In a tweet from April 1 you said ``engagement is the 
best way to bring freedom and opportunity to people of #Cuba and to 
promote America's national interests.''

  <diamond> We are all familiar with the numerous unilateral 
        concessions the U.S. has given to the Castro regime. However, 
        what freedoms have the Obama administration's policy of 
        engagement secured for the Cuban people?

    Answer. Through increased travel and communication between Cubans 
on the island and people in the United States, which is a key part of 
the administration's new approach, the Cuban people will be empowered 
through greater access to information and resources. People-to-people 
ties will be strengthened, and result in the building of bridges to 
bolster and broaden the normalization process.
    This approach is already working. For example, we have seen an 
increase of about 35 percent in U.S. travel to Cuba this year, a deal 
by IDT Corporation, a New Jersey based telecommunications company, to 
handle direct long-distance phone traffic from Cuba, and the Cuban 
Government's release of a broadband strategy that acknowledged its low 
household penetration rate of less than 5 percent and set the ambitious 
goal of achieving more than 50 percent by 2020. Moreover, in June the 
Cuban Government announced plans to open 35 public wi-fi hotspots for 
half the current price. We believe increased access to the Internet is 
fundamental to the free flow of information, and to the ability of the 
Cuban people to freely express themselves. We see this having enormous 
potential to connect the Cuban people with the rest of the world.
    We believe our policy of empowering the Cuban people with greater 
access to information and resources will help foster prosperity for 
Cuban citizens. To this end, changes that went into effect on January 
16 increase the amount of remittances permitted under general licenses 
and authorize expanded commercial sales from the United States of 
certain goods and services for use by private sector entrepreneurs and 
agricultural workers.

    Question #14. Secretary Jacobson, in your testimony to this Senate 
Foreign Relations Committee on February 3, you stated: ``We are already 
seeing indications that our updated approach gives us a greater ability 
to engage other nations in the hemisphere and around the world in 
promoting respect for fundamental freedoms in Cuba.''
    Since the President's December 17 announcement, there has been a 
slew of foreign dignitaries, business leaders, and Members of this 
Congress traveling to Cuba. They have all followed the same script, 
focusing on meetings with regime officials and ignoring Cuba's 
courageous dissidents. For example, one would be hard-pressed to find 
any foreign dignitary, business leader, or Member of this Congress, who 
has met with Berta Soler, the head of The Ladies in White, while in 
Havana. And that is the most-world renowned democracy group in Cuba.
    As Yoani Sanchez recently wrote, ``a true shower of Presidents, 
Foreign Ministers and deputies has intensified over Cuba without daily 
life feeling any kind of relief from such illustrious presences.''
    Meanwhile, political arrests in Cuba continue to rise. Since 
December 17, there have already been over 2,500 documented arrests. We 
have seen an increase in violent tactics, like this week against 
democracy leader Antonio Rodiles, who literally had his nose shattered 
by secret police officials, requiring emergency surgery.

  <diamond> Why are all of these foreign dignitaries and businessmen 
        shunning Cuba's democracy activists during their trips to 
        Havana? Is it because the Cuban regime has made it clear that 
        visits with dissidents would result in having meeting with 
        regime officials canceled? As such, has this not further 
        empowered the regime?
  <diamond> What are some specific, recent examples of nations in this 
        hemisphere promoting fundamental freedoms in Cuba, as you 
        testified to this committee would take place?

    Answer. We regularly urge foreign governments and other 
international organizations to raise human rights issues with the Cuban 
Government and meet with a broad range of Cuban society including 
independent civil society, both inside and outside of Cuba. The U.S. 
mission in Havana has maintained long-standing contacts with diverse 
and respected Cuban dissidents. Several Members of Congress, including 
Representative Pelosi and Senator Flake, met with Cuban civil society 
representatives during previous visits to Havana. Moreover, the 
President has expressed his confidence in the American people as being 
the best ambassadors of our principles and values. That would include 
U.S. businesses.
    The United States remains committed to supporting vibrant civil 
society and forward progress on human rights issues in Cuba. To that 
end, we continue to encourage other governments and international 
organizations to raise human rights concerns in their meetings with the 
Cuban Government. We believe our previous policy of isolation was 
counterproductive in that it made it more difficult for the United 
States to advance this goal. Under our new policy approach to Cuba, 
U.S. diplomats will have greater access to engage directly with the 
Cuban Government on a range of issues and in particular, on human 
rights.
    We believe U.S. engagement with Cuba will also result in greater 
visibility and greater support internationally for Cuban civil society. 
For the first time, independent Cuban civil society groups attended the 
Summit of the Americas in Panama City this year. Cuban dissidents 
participated in President Obama's meeting with civil society at the 
summit, along with the Presidents of Uruguay and Costa Rica. Moreover, 
we have been able to bring together third country ambassadors on the 
island with dissidents for the first time. These opportunities give 
dissidents not permitted to travel, access to such diplomats for the 
first time. Cuban Government-organized groups tried to block and 
publicly clashed with independent Cuban groups, who demonstrated their 
maturity and professionalism with substantive participation in the 
summit process. We believe these public incidents served to place a 
spotlight for the rest of the region on the restrictive environment in 
which Cuban civil society operates and raise awareness of this issue 
for the benefit of many government representatives and civil society 
groups from around the hemisphere. Finally, increasing the free flow of 
information to and from Cuba, a key component of the President's 
policy, will help amplify new voices from Cuba and increase information 
to activists on the island.

    Question #15. During the President's December 17 announcement, he 
``welcomed'' the Cuban regime's decision to provide more access to 
international institutions, specifically the International Committee of 
the Red Cross, which promotes universal values.

  <diamond> Has the Cuban regime allowed the ICRC to visit prison 
        conditions in Cuba, as they have repeatedly requested and been 
        denied, but President Obama announced? Have you discussed this 
        issue, which is one of the very few things the Cuban regime 
        apparently promised President Obama for the litany of 
        concessions given?
  <diamond> How many Cubans have been jailed since December 17?

    Answer. In the March session of the Human Rights Council, Cuban 
Foreign Minister Rodriguez extended an invitation to the president of 
the ICRC to visit Cuba. We are not aware of visits by the ICRC to 
monitor prison conditions, and ultimately, the scheduling and specific 
details of visits by international human rights organizations to Cuba 
are determined by the Cuban Government and those international actors, 
respectively. We have and continue to use the opportunities presented 
by our new approach to Cuba to urge the Cuban Government to schedule 
these and other visits by international human rights bodies in order to 
provide for greater transparency and allow for objective assessments of 
the state of Cuba's prisons. We will encourage other countries to urge 
the same.
    During my January 22 visit to Cuba, I urged the Cuban Government to 
provide prison access to the U.N. and other international 
organizations. We will continue to press for greater access--and for 
the Cuban Government to live up to Raul Castro's statement that ``Cuba 
reiterates its willingness to cooperate in multilateral bodies, such as 
the United Nations.''
    Independent civil society groups track the number of short-term 
arbitrary detentions of activists who are freely exercising their human 
rights and fundamental freedoms. From January through June 2015, the 
independent group Comision Cubana de Derechos Humanos y Reconciliacion 
Nacional (Cuban Commission of Human Rights and National Reconciliation) 
documented 2,822 short-term detentions.

    Question #16. Cuba is considered a hard target by the Intelligence 
Community and has an aggressive intelligence collection posture against 
the United States. The United States is considered the principal target 
from the Cuban intelligence apparatus. The U.S. employs hundreds of 
Cuban nationals at the U.S. Interests Section in Havana. This is 
clearly a significant counterintelligence threat.

  <diamond> While I recognize that it is not possible to have every 
        person working at the Interests Section a U.S. person, do you 
        support efforts to have supervisory positions headed up by U.S. 
        persons who have undergone a background investigation to ensure 
        we are taking reasonable steps to counter the CI threat at our 
        diplomatic facilities in Cuba?

    Answer. No. Given the unique nature of working in Cuba, we have a 
dynamic program in place to ensure the safety and security of personnel 
and sensitive information.
    Our operations in Havana and around the world dictate we use local 
staff for supervisory positions in some Embassy functions (motorpool, 
administrative, and consular, for example). Utilizing locally hired 
staff results in significant costs savings as compared to U.S. direct-
hire employees. As is standard practice at our embassies throughout the 
world, an American employee with a security clearance in the direct 
chain of the employee must review all Cuban staff and sign off on their 
employee evaluations. As a result, each Cuban employee of the U.S. 
Embassy in Havana is supervised by a cleared American employee. 
Furthermore, Cuban employees at the Embassy do not have the authority 
to make hiring or dismissal decisions, nor can they implement 
disciplinary actions.

    Question #17. According to the State Department's annual 
Trafficking in Persons Report, Cuba has been a Tier 3 country since 
they were first evaluated in 2003.

  <diamond> Is the State Department planning on moving Cuba to Tier 
        Watch List 2?
  <diamond> What specific actions have the Cuban Government taken to 
        justify its improvement in ranking?

    Answer. The Department will be releasing this year's Trafficking in 
Persons (TIP) Report soon. It would be premature to comment on any 
particular outcome; whatever conclusions are reached with respect to 
individual countries will both be based on a pragmatic analysis of the 
best information possible and reinforce our strong interest in human 
rights around the world.
    The TIP Report covers 188 countries and territories in detail. 
Consistently over the past 14 years, it has provided detailed analyses 
and meaningful recommendations for advancing global efforts to fight 
trafficking. As with any nation, the United States seeks to cooperate 
with Cuba in eliminating trafficking in persons.

    Question #18. During a special briefing on May 19, 2015, regarding 
the Ongoing Discussions with Cuba to Re-Establish Diplomatic Relations 
and Reopen Embassies, an anonymous senior State Department official 
stated the following via teleconference:

          SENIOR STATE DEPARTMENT OFFICIAL: ``I can certainly reiterate 
        that the status of Guantanamo is not a part of these talks.'' 
        As I had said months ago, it is not on the table. The question 
        of why, or why not, I think is a question--the President has 
        made clear he's not interested in having that conversation. But 
        we've made clear that the issue of Guantanamo is not on the 
        table at this point, and I don't--I can't say what the future 
        may bring on this, but it's not on the table right now, and I 
        don't know that there's a reason to justify having it or not 
        having it. And you certainly heard the Cubans' view on this, 
        but it's not under discussion at this point.


    That official went on to say of U.S. democracy programs:


          SENIOR STATE DEPARTMENT OFFICIAL: ``On the question of 
        democracy programs, I think the thing that you have to remember 
        is the democracy programs, in their history since I think about 
        1996 when they began, have changed over time. And they will 
        continue to change over time to reflect a reality, whether that 
        reality is on the ground in Cuba or in the United States. When 
        the democracy programs began, for example, Cubans could not 
        travel nearly as freely as they now can. Ever since the change 
        in policy by the Cuban Government in 2013, many more people can 
        travel, which means people can do things and participate in 
        things outside of Cuba as opposed to inside of it.
          ``I think we always have to be cognizant of making sure that 
        when we are supporting the Cuban people, we're doing it in a 
        way that is the most effective. We've moved forward with 
        requests for funding in the past couple of years, and we've 
        done that most recently in FY16. But I think we have to be 
        careful not to ever have thought that those programs were 
        static and separate from changes in the environment in which 
        they're working.''

  <diamond> Were you that anonymous official?
  <diamond> Was that official expressing a change in U.S. policy on the 
        strategic importance of Naval Station Guantanamo?
  <diamond> How do you anticipate democracy programs in Cuba to 
        ``change over time?''

    Answer. The Department does not normally provide the names of 
officials who are asked to do background briefings for the press. 
However, I can affirm to you that there has been no change in U.S. 
policy regarding the strategic importance of Naval Station Guantanamo. 
We have not discussed the status of Naval Station Guantanamo with the 
Cuban Government during these discussions. I reiterate Secretary 
Kerry's statement on July 20 that ``at this time, there is no 
discussion and no intention on our part at this moment to alter the 
existing lease treaty or other arrangements with respect to the naval 
station.''
    U.S. assistance supports civil society initiatives that promote 
democracy, human rights and fundamental freedoms, particularly freedom 
of expression. The promotion of democratic principles and human rights 
remains the core goal of U.S. assistance. Through regular interagency 
meetings, the Department and USAID work together to review programs, 
identifying the most successful programming areas to date and making 
note of new or as-yet unreached audiences, so that future programs 
among the agencies will be complementary and highly effective. 
Following Cuba's lifting of travel restrictions in early 2013, more 
civil society members have been able to participate in training 
opportunities outside of Cuba, increasing their professional networks. 
In addition, as the staff members at the U.S. Embassy in Havana are 
able to engage a wider range of Cuban society, new areas of focus for 
our programming may develop, consistent with applicable U.S. 
legislation.

    Question #19. On January 18, 2015, Argentinian prosecutor Alberto 
Nisman was found dead of a gunshot wound in his apartment located in in 
Buenos Aires, Argentina. Nisman was the principal investigative 
prosecutor in the Argentine Israelite Mutual Association (AMIA) bombing 
investigation, killed 85 people and wounded more than 300. Nisman's 
investigation revealed the involvement of Iran and Hezbollah in the 
attack and led to the issuance of Interpol ``Red Notices'' (detainment 
notices) for the identified conspirators.

  <diamond> Have you seen any analysis of the Nisman death that would 
        lead you to conclude that he was murdered?

    Answer. There has been a great deal of analysis and speculation 
concerning the causes of and responsibility for Prosecutor Nisman's 
death; however, to date the investigation has been inconclusive. Since 
the death of Prosecutor Nisman, both the Department and our Embassy in 
Buenos Aires have pushed for a complete, transparent, and impartial 
investigation into Mr. Nisman's death. Through our Embassy in Buenos 
Aires, we have been in contact with Argentine law enforcement officials 
to offer U.S. assistance to the investigation.

    Question #20. The Millennium Challenge Corporation's Compact-
Eligibility Country Selection Criteria and Methodology includes a 
competitive selection process that judges each country's performance in 
three areas, ruling justly; investing in people and economic freedom.

  <diamond> Do you believe that El Salvador's Government is worthy of 
        MCC funds that are intended for countries that are ``governing 
        justly'' and upholding the rule of law?
  <diamond> Are you aware of any discussion among officers of your 
        bureau or with MCC staff that the standards were being lowered 
        to accommodate El Salvador's second MCC grant of $277 million?
  <diamond> Can you describe such deliberations in detail?

    Answer. To determine countries' eligibility to receive compacts MCC 
utilizes a scorecard that measures the extent to which a country rules 
justly, respects economic freedom, and invests in its people. MCC has 
determined that El Salvador meets these requirements. Additionally, El 
Salvador was a strong partner in implementing their first MCC compact.
    MCC monitors its partner countries before and during compact 
implementation. MCC has shown that it will take action--up to and 
including suspension or termination--if an MCC partner is engaged in a 
pattern of actions inconsistent with the agency's principles and 
selection criteria. The Salvadoran Government committed to contribute 
$88.2 million on top of MCC's investment, constituting a combined total 
of $365.2 million.
    When MCC's Board of Directors approved the compact in September 
2013, MCC stated its expectation that the Salvadoran Government needed 
to make tangible and sustained progress on improving the investment 
climate and strengthening the rule of law. Progress in these areas will 
help ensure that MCC's investment achieves long-term and sustainable 
results.
    Once the Salvadoran Government presented a solid plan to address 
these issues and made tangible and sustained progress on addressing 
them, MCC moved forward with signing the compact in September 2014.
    Among other reforms and commitments obtained from the Salvadoran 
Government as a condition for compact signing, the Legislative Assembly 
passed reforms to the antimoney laundering regime prior to the signing 
and the Salvadoran Government committed to further reforms 
criminalizing bulk cash smuggling and regulating money remitters. Now 
that the compact is signed, the focus is on successful implementation 
of the projects, which include further reforms to improve the 
investment climate.

    Question #21. On January 30, 2015, I wrote a letter to Secretary 
Kerry expressing concern about the Government of Uruguay's handling of 
six Guantanamo Bay detainees transferred to Uruguay in December 2014. 
In that letter, I requested ``the written agreement between the U.S. 
Department of State and the Government of Uruguay'' related to the 
transfer of these detainees. Following several briefings, the State 
Department informed my staff and Senator Corker's staff that there was 
no written agreement. On May 20, 2015, Chairman Corker formally 
requested ``All diplomatic notes, cables, and other documents 
describing any commitments, understandings, or other agreements or 
arrangements between the United States Government and the Government of 
Uruguay related to the transfer and subsequent disposition of the 
Guantanamo Bay detainees transferred late last year.''

  <diamond> Please provide these documents.

    Answer. The Department appreciates Congress' important oversight 
responsibilities on these transfers and is committed to providing 
information to enable your committee to perform that function. That 
said, the Department, across two administrations, has consistently 
informed Congress, and represented to U.S. courts, that disclosing 
these diplomatic assurances would have a chilling effect on foreign 
governments' willingness to cooperate on detainee transfers.
    Accordingly, these sensitive diplomatic communications containing 
foreign government information are kept to a limited executive branch 
dissemination. Indeed, foreign governments have noted that disclosure 
outside of this limited dissemination could endanger future cooperation 
related to detainee transfers, which would harm cooperative efforts to 
mitigate any threat posed by transferred detainees.
    The Department is happy to brief you or your staff further on these 
issues.

    Question #22. If confirmed, what will be your approach regarding 
raising U.S. concerns related to corruption, religious freedom, and 
human rights in Mexico? How will you, as Ambassador, broach what are 
often sensitive issues with a close democratic partner?

    Answer. We have a strong, positive relationship with Mexico that 
allows us to raise issues of concern in a respectful, productive 
manner. If confirmed as Ambassador, I will work to maintain a 
constructive partnership such that we can forthrightly share viewpoints 
and work together to resolve areas of concern in a proactive and direct 
manner.
    Cooperation on anticorruption and good governance are a core part 
of the bilateral agenda. President Pena Nieto signed Mexico's 
anticorruption bill into law in May. The legislation will strengthen 
oversight of public officials and designates a special prosecutor to 
tackle corruption issues. Mexico is also a founding member of the Open 
Government Partnership and its willingness to chair the initiative for 
the next year is a signal of President Pena Nieto's desire to improve 
governance in Mexico.
    We are actively engaged with Mexico on human rights issues, and we 
have established a formal mechanism, the Bilateral Human Rights 
Dialogue that brings together officials from the Departments of State, 
Defense, Homeland Security, Justice, and other U.S. Government agencies 
to meet with Mexican counterparts, to review and discuss a wide range 
of human rights issues.
    In addition to the formal Bilateral Dialogue, we regularly meet 
with government officials at all levels, as well as with civil society 
and human rights groups, to discuss both general issues and specific 
cases--including issues related to religious freedom. If confirmed, I 
will work to strengthen these efforts and ensure human rights concerns 
remain a central element of our bilateral relationship.

                               __________
        ambassador-designate jacobson's responses to additional 
                 follow-up questions from senator rubio
    Question. Mrs. Jacobson, the Obama administration stated that its 
January 2015 changes to U.S. regulations regarding commerce and travel 
to Cuba were tailored to ``support the Cuban people.'' Yet, in a recent 
newspaper article about the limited commerce resulting from this new 
policy because of the Cuban Government's insistence on funneling U.S. 
transactions through its monopolies, rather than allowing the Cuban 
people to benefit directly, you were quoted as stating that the new 
rules were ``a work in progress. Cubans are getting used to it; our 
business people are getting used to it. We are going to tweak. We may 
not have written them right.''

  <diamond> What portion of the administration's new Cuba regulations 
        was ``not written right?''
  <diamond> Do you agree that accommodating increased U.S. commerce 
        through the Cuban Government's monopolies does not ``support 
        the Cuban people'' and that such benefiting of the Cuban 
        Government's oligarchs contravenes the previously stated 
        purpose of the Obama administration's Cuba policy and 
        legislative limitations on U.S. Policy toward Cuba as codified 
        in law?

    Answer. The regulatory amendments introduced January 16 by the 
Departments of Commerce and the Treasury, consistent with the 
President's December 17, 2014, announcement, were developed through a 
comprehensive interagency process in order to increase the flow of 
information and resources in support and for the benefit of the Cuban 
people. These changes, among other things, ease travel restrictions, 
facilitate certain exports, and increase the amount of remittances that 
may be sent to individual Cubans. This administration is strongly 
committed to ensuring that the spirit of the President's new direction 
on Cuba policy is implemented in practice, and that U.S. persons are 
able to engage with and support the Cuban people. The regulations were 
published 1 month after the President's announcement, and in the 
following months many individuals, NGOs, and businesses have begun to 
use these authorizations. There is no question that these measures have 
already had a substantial positive impact on the Cuban people. However, 
across sanctions programs, the U.S. Government makes every effort to 
ensure that authorizations have the intended impact--something that 
cannot be ensured until they are used. To this end, the State 
Department supports amendments and changes to regulations to help 
ensure that our foreign policy goals continue to be fully met.
    The January 16 regulatory amendments are consistent with U.S. law 
and with our foreign policy goals. Increased travel and interaction 
between the United States and Cuba, and limited commerce in certain 
areas (e.g., exports of agricultural commodities, medicines and medical 
devices, items for use by the Cuban private sector, consumer 
communications devices, and telecommunications equipment) serve to 
build people-to-people ties and increase the flow of information and 
resources to the Cuban people.

    Question. Related to the case of notorious Mexican drug lord ``El 
Chapo'' Guzman:

  <diamond> What was the first date on which you discussed the Guzman 
        case with Mexican officials?
  <diamond> What was the last date on which you discussed the Guzman 
        case with Mexican officials?
  <diamond> As Assistant Secretary, were you personally aware of any 
        information suggesting that Guzman was plotting an escape?
      <all>  If so, did you convey this information to Mexican 
            officials?

    Answer. Extradition of Joaquin ``El Chapo'' Guzman has been the 
subject of discussions between the United States and Mexico for a 
number of years. Pursuant to the U.S./Mexico Extradition Treaty, in 
advance of submitting a full extradition request, either country may 
seek from the other a provisional arrest warrant for a fugitive; the 
treaty further contemplates that, after the fugitive has been arrested, 
a full extradition package will be submitted. We can confirm that, at 
the request of the United States, Mexico issued such a provisional 
arrest warrant more than a decade ago.
    After the Mexican Government recaptured Guzman on February 22, 
2014, I and others in the U.S. Government and in Embassy Mexico City 
discussed the Guzman case with Mexican officials and underscored the 
strong interest of the United States in seeking his extradition. We 
remained in close contact with the Mexican Government and subsequent to 
the arrest of Guzman last year, the United States submitted a full 
extradition request to Mexico.
    U.S. Attorney General Lynch spoke with Mexican Attorney General 
Gomez on July 12--within 24 hours after Guzman's escape--to offer full 
support to the Mexican Government in its efforts to recapture him. The 
United States and Mexico are working closely together through law 
enforcement and diplomatic channels at all levels to coordinate efforts 
and resources to recapture Guzman.
    Both Mexican and U.S. authorities were well aware of Guzman's 
history and previous escape. During Guzman's recent incarceration, the 
U.S. Government discussed with Mexican authorities information 
concerning his criminal associates' desire to break him out of prison; 
however, this information was general, nonspecific, and spoke to 
intent, not the actual planning, means, or timing of an escape attempt.

    Question. Regarding your 2014 testimony on the human rights 
situation in Venezuela: Did the recognized leaders of Mesa Unidad 
Democratica ask you directly to ensure that the U.S. Government not act 
in a way that would undermine the ongoing dialogue?

  <diamond> Which members of the political opposition whom were engaged 
        in the dialogue did you speak with?
  <diamond> Please explain how the answer to my question for the record 
        is consistent with your clarification for the record last year 
        indicating that you had not been in touch with members of the 
        opposition involved in the dialogue?

    Answer. Both my clarification for the record last year and my 
response to your question for the record are consistent with my 
testimony.
    Over the last several years, in Washington and elsewhere, I have 
had the opportunity to speak with many members of the diverse 
Venezuelan political opposition, private sector, civil society, and 
government.
    The political opposition is in an extremely difficult position in 
Venezuela, and not all members of the opposition agree on how to 
further their political objectives. I respect the varying opinions and 
perspectives among leaders of the MUD. When developing U.S. policy, we 
remain mindful of the on-the-ground situation and the possible 
consequences of our actions. There was no direct request that we 
refrain from sanctions, but we were at that time extremely aware of the 
context of the dialogue and its fragility.

    Question. On Question 9 related to the Venezuela Defense of Human 
Rights and Civil Society Act of 2014, please provide a written response 
or a briefing in the appropriate setting explaining why these 
individuals have not been sanctioned.

  <diamond> Miguel Rodriguez Torres, the Minister of Interior, Justice; 
        and Peace Hugo Carvajal, the head of the Directorate of 
        military intelligence Diosdado Cabello, President of the 
        National Assembly of Venezuela.

    Answer. Each determination on whether and when to impose targeted 
measures, including visa restrictions or asset blocking, takes into 
account U.S. law and whether the measures are likely to advance U.S. 
foreign policy interests in addition to the specific information we 
have on individuals. These interests include respect for the human 
rights of the Venezuelan people, democratic governance and pluralism, 
and regional security and stability.
    On September 12, 2008, the U.S. Department of the Treasury's Office 
of Foreign Assets Control (OFAC) designated Hugo Armando Carvajal 
Barrios under the Kingpin Act. That action froze any assets Carvajal 
may have under U.S. jurisdiction and prohibited any U.S. persons from 
conducting financial or commercial transactions involving those assets.
    The steps the Department took in July 2014 and February 2015 to 
restrict visa eligibility for individuals believed to be responsible 
for, or complicit in, human rights abuses and public corruption were 
carried out pursuant to Section 212 (a)(3)(C) of the Immigration and 
Nationality Act. Visa confidentiality laws restrict us from naming 
those individuals.
    We continue to monitor developments on the ground and stand 
prepared to take action against others as additional information 
becomes available and is assessed in terms of U.S. law and foreign 
policy interests.

    Question. On Question 11, please provide any documents that outline 
the agreement you negotiated, legally binding or otherwise, between the 
United States and Cuba regarding the number of personnel allowed at 
each Embassy and the conditions under which the Embassies will operate. 
If this is not provided in the exchange of notes or letters, please 
provide the relevant reporting cables.

    Answer. We appreciate and welcome the strong interest that you and 
other Members of Congress have in ensuring that our U.S. Embassy in 
Cuba will be able to fully perform its duties and functions. We also 
appreciate that Congress has important oversight responsibilities in 
this regard and we are committed to providing as much information as 
possible to ensure that Congress can perform this function.
    As you know, on July 7 senior officials from the U.S. State 
Department's Bureau of Western Hemisphere Affairs and Bureau of 
Diplomatic Security provided a classified briefing to Foreign Relations 
Committee staff, including members of your staff, which covered all 
substantive aspects of the agreement, including the numbers of 
personnel at each Embassy and the conditions under which the Embassies 
will operate. We would be happy to continue briefing your staff to 
answer any additional questions you may have and to update you as the 
bilateral relationship progresses.

    Question. On Question 12, are you arguing that the administration's 
Cuba policy complies with Section 201 of the Cuban Liberty and 
Democratic Solidarity Act and if so, how? If not, has the 
administration concluded it is not bound by this law and if so, why?

    Answer. The administration's Cuba policy is consistent with all 
applicable law. Article II, Section 3 of the Constitution grants the 
President the authority to ``receive Ambassadors and other public 
Ministers.'' This grant of authority has long been understood to 
provide the President with the exclusive authority to establish 
diplomatic relations with foreign nations. Presidents throughout our 
history have used their constitutional authority to establish or 
reestablish diplomatic relations with foreign nations, and there are 
numerous recent examples of Presidents from both parties doing so.
    Section 201 of the Cuban Liberty and Democratic Solidarity 
(``LIBERTAD'') Act of 1996 provides that it is the policy of the United 
States ``[t]o consider the restoration of diplomatic recognition and 
support the reintegration of the Cuban Government into Inter-American 
organizations when the President determines that there exists a 
democratically elected government in Cuba.'' While the provision thus 
indicates that the United States should consider restoration of 
diplomatic recognition if the specified condition is met, it does not 
by its terms purport to prohibit the President from exercising his 
exclusive constitutional authority with respect to recognition in other 
circumstances. Consistent with long-standing constitutional practice 
and President Clinton's statement on signing the LIBERTAD Act, we 
construe this provision to be precatory to avoid interfering with the 
President's constitutional authority to reestablish diplomatic 
relations with Cuba.

    Question. On Question 13, what is the percentage increase in 
Internet access in Cuba since December 17, 2014?

    Answer. Data are not available to estimate the increase in Internet 
access in Cuba since December 17 with sufficient accuracy. However, 
public pressure for Internet access has swelled in recent months, 
evidenced in part by a substantial increase in demand for Cubans' use 
of the Internet Center at Embassy Havana. The January 16 regulatory 
changes enable U.S. telecommunications firms to export the equipment 
and services needed to rapidly expand Internet connectivity.
    The Cuban National Assembly posted updates regarding its July 14 
session on official Twitter and Facebook accounts, suggesting the Cuban 
Government's acknowledgment of the need to adapt to greater 
international interconnectivity. In June, the Cuban Government 
announced the addition of 35 Wi-Fi hotspots and a reduction in Internet 
access rates from $4.50 to $2.00. While this rate is still too 
expensive for the average Cuban, we assess the Cuban Government finally 
realizes its Internet penetration rate of less than 5 percent is too 
low for the country to thrive in a global economy. For the moment, 
however, reliable, legal, and affordable Internet access remains out of 
reach for the average Cuban citizen.

    Question. With regards to Question 16, please answer the following 
questions:

  <diamond> How many non-U.S. persons currently work in U.S. diplomatic 
        facilities in Cuba?
  <diamond> How many are projected to work there next year? Are there 
        plans to hire additional non-U.S. persons?
  <diamond> How many non-U.S. persons currently hold supervisory 
        positions in U.S. diplomatic facilities in Cuba?
  <diamond> Do any of these individuals have access to sensitive areas 
        within the U.S. Embassy compound such as access to the 
        Ambassador, DCM or other senior leader's office space, access 
        to the same floor as a sensitive compartmented information 
        facility or the motor pool vehicles used by senior U.S. 
        diplomats and visiting delegations?
  <diamond> How does the State Department define ``supervisory'' in 
        this instance?
  <diamond> Please list the positions defined as supervisory that are 
        currently held by non-U.S. persons.
  <diamond> Have any of these individuals undergone a background check 
        or polygraph test?

      <all>  If so, who conducted the background checks or polygraph 
            tests?

  <diamond> What would it cost to replace each non-U.S. person 
        supervisor currently working in a U.S. diplomatic facility in 
        Cuba with a cleared U.S. person?

    Answer. There are currently 294 non-U.S. persons working in U.S. 
diplomatic facilities in Cuba. We have several authorized positions 
that are currently vacant and hope to fill 10-15 of these in the next 
year.
    We employ local staff in Havana in positions that entail some 
oversight of local staff, as we do at all embassies throughout the 
world. In Havana, approximately 40 Cubans have some oversight of other 
Cuban employees. No Cuban employees supervise American staff. Each 
Cuban employee has an American supervisor. Cuban employees do not have 
the authority to make hiring or dismissal decisions, nor can they 
implement disciplinary actions.
    Access to our facilities in Havana is strictly controlled. As with 
other embassies around the world, there are certain areas within the 
Embassy that only cleared Americans can access.
    The following positions have some oversight or administrative 
responsibility for less experienced Cuban staff and are currently held 
by non-U.S. persons:

  <diamond> Senior HR Assistant
  <diamond> Senior Storekeeper
  <diamond> Shipment Supervisor
  <diamond> Mechanic Supervisor
  <diamond> Maintenance Supervisor (2)
  <diamond> Computer Management Supervisor
  <diamond> Procurement Team Leader
  <diamond> Housing/Property Assistant
  <diamond> Senior Guard Supervisor
  <diamond> Guard Shift Supervisor (5)
  <diamond> Senior Guard (5)
  <diamond> Administrative Assistant
  <diamond> Senior Visa Assistant
  <diamond> Refugee Unit Supervisor
  <diamond> IV/NIV Team Leader (6)
  <diamond> IV Subject Matter Expert (2)
  <diamond> Admissions Team Leader
  <diamond> Document Checker Team Leader
  <diamond> Principal Cashier
  <diamond> PSU Team Leader
  <diamond> Physician
  <diamond> Pol/Econ Assistant
  <diamond> Senior Media Assistant
  <diamond> Financial Specialist

    All Cuban employees are required to pass a background check 
investigation that is performed by a cleared American staff member of 
the Regional Security Office.
    For FY 2017, the estimated startup costs for a new U.S. Direct Hire 
(USDH) position overseas is $222,500. The yearly costs for that 
position are estimated at $441,100. The average cost of a Cuban 
employee at the Embassy in Havana is $12,000. To replace a Cuban 
employee with a USDH would cost an additional $651,600 the first year 
and $429,100 in subsequent years.

    Question. With regards to Question 17, given that the report has 
now been released:

  <diamond> What was your role in the decision to move Cuba from Tier 3 
        to Tier 2 Watch List in the TIP report?
  <diamond> Did you discuss the TIP ranking upgrade during your 
        recently concluded negotiations with the Cuban Government?
  <diamond> What specific actions did the Cuban Government take during 
        2014 to justify this upgrade?

    Answer. The Office to Monitor and Combat Trafficking in Persons (J/
TIP), which gathers data for and drafts the annual TIP report, does not 
fall under my oversight. However, the Bureau of Western Hemisphere 
Affairs collaborates with J/TIP in developing the report narrative and 
ranking for WHA countries. Information used to generate the report 
comes from a wide variety of credible sources, including foreign 
government officials, NGO representatives, international organizations, 
journalists, academics, and survivors of trafficking. Also included is 
input from U.S. diplomats on the ground and State Department country 
desk officers.
    State Department officials do not discuss TIP rankings with foreign 
governments prior to the annual report's public release. And we did not 
do so with the Cubans during the negotiations on reestablishing 
diplomatic relations or at any other time in our discussions with the 
Cubans. As a courtesy, we do disclose our final decisions to foreign 
governments shortly before publicly releasing the annual rankings. Tier 
rankings in the 2015 TIP report reflect a country's efforts to comply 
with the minimum standards to eliminate trafficking in persons set 
forth by Congress in the Trafficking Victims Protection Act (TVPA), 
including law enforcement efforts, victim assistance, and prevention 
efforts.
    In 2014, the Cuban Government reported several law enforcement and 
victims assistance efforts to combat sex trafficking. For example, the 
government released official data on prosecutions and convictions of 
sex traffickers during the previous calendar year, showing additional 
law enforcement efforts that led to 13 prosecutions and convictions, 
versus 10 in 2012. This demonstrated clear progress over the prior 
year.
    The government also provided assistance to sex trafficking victims 
identified in the 13 cases. In addition, employees of the Ministries of 
Tourism and Education received training to spot indicators of sex 
trafficking, particularly among children engaged in commercial sex.
    Our robust engagement with the Cuban Government on combating 
trafficking in persons has included the exchange of delegations of 
experts in 2014 and 2015.

    Question.
  <diamond> Is it your assessment that the Government of Argentina has 
        conducted a complete, transparent, and impartial investigation 
        into the death of Alberto Nisman?
  <diamond> Have the offers of U.S. assistance you mentioned been 
        accepted by the Government of Argentina?
  <diamond> What is your assessment of the accusations made as a result 
        of Mr. Nisman's investigation into the AMIA bombing?

    Question. The Argentine investigation into Alberto Nisman's death 
has not yet concluded. We are following the investigation closely, 
including the analyses of outside investigators hired by Mr. Nisman's 
former wife, Judge Sandra Arroyo Salgado. The United States has urged 
the Argentine Government to conduct an objective, transparent, 
thorough, and prompt inquiry into Mr. Nisman's death, and we await the 
outcomes of the ongoing inquiry. Argentine authorities have not 
accepted U.S. offers of investigative assistance, although we remain 
ready to provide aid--if and when requested.
    It is for the Argentine people and judicial system to assess the 
results of Mr. Nisman's investigation and its relevance to the bombing 
of the AMIA Jewish community center. For more than two decades, the 
United States has supported Argentina's efforts to hold accountable the 
perpetrators of the heinous attack on the AMIA Jewish community center. 
I personally did some of my first work in the region researching the 
Argentine Jewish community during the military government, have known 
leaders of the community for decades, and care deeply about the outcome 
of this case. We have clearly and consistently urged the international 
community to support the investigation, consistent with the rule of 
law. The United States looks forward to, and will continue to work 
toward, the day when justice is done for the victims of this attack.

    Question. With regards to Question 21, multiple Senators have been 
requesting this information for more than 6 months. Despite repeated 
briefings, the administration has yet to provide the requested 
information, even in summary form, including the specific commitments 
made by the Government of Uruguay.

  <diamond> Please provide the requested information so that this 
        committee can fulfill its oversight responsibilities.

    Answer. The Department appreciates Congress' important oversight 
responsibilities on these transfers and is committed to providing 
information to enable your committee to perform that function. As you 
know, the Department, across two administrations, has consistently 
informed Congress and represented to U.S. courts that disclosing these 
diplomatic assurances would have a chilling effect on foreign 
governments' willingness to cooperate on detainee transfers.
    Accordingly, these sensitive diplomatic communications containing 
foreign government information are kept to a limited executive branch 
dissemination. Indeed, foreign governments have noted that disclosure 
outside of this limited dissemination could endanger future cooperation 
related to detainee transfers, which would harm cooperative efforts to 
mitigate any threat posed by transferred detainees.
    The Department is committed to continuing and deepening our 
dialogue with you on this important topic and the Office for Guantanamo 
Closure would be happy to brief you or your staff further on these 
issues.


    Question. What portion of the administration's new Cuba regulations 
was ``not written right?''

    Answer. Following the President's December 17, 2014, announcement, 
the Treasury and Commerce Departments took steps within the scope of 
executive authority to implement certain aspects of the 
administration's new approach toward Cuba. The regulatory amendments 
published January 16 were developed through a comprehensive interagency 
process with the goal of further engaging and supporting the Cuban 
people. To that end, it is clear that these regulations have already 
made a substantial impact. For example, travel to Cuba increased over 
35 percent during the first quarter of 2015, and U.S. entities have 
made use of the new license exception for exports. In addition, the 
debate over access to the internet in Cuba has shifted from criticism 
of U.S. restrictions to what steps the Cuban Government must take to 
increase connectivity and allow its people to communicate amongst 
themselves and with the outside world.
    My comment was not intended to signal that the January regulatory 
amendments were somehow written incorrectly or in error, but rather 
that we continue to assess how the intent of the policy direction can 
be achieved in practice. As we do across sanctions programs, the U.S. 
Government will continue to make every effort to ensure that the Cuba 
regulations have the intended impact and meet our foreign policy goals, 
within the limits of executive authority. The State Department 
regularly supports amendments and changes to regulations to help ensure 
that our foreign policy goals continue to be fully met.

    Question. What was the last date prior to his escape from prison on 
which you discussed the Guzman case with Mexican officials?

    Answer. Upon his arrest last year, I and other U.S. Government 
officials discussed with Mexican officials numerous times the 
importance of extraditing Guzman to the United States. I repeatedly 
made clear that Guzman's eventual extradition to the United States was 
a top priority for the U.S. Government and for our bilateral law 
enforcement cooperation. Our Mexican counterparts made clear they 
wanted to prosecute Guzman in Mexico for crimes committed against the 
Mexican people before taking up consideration of any extradition 
request. That is Mexico's sovereign right and is permitted under our 
bilateral extradition treaty, at Mexico's discretion. The Mexicans 
believed they would be able to hold Guzman in prison; however, I and 
other U.S. Government officials continued to raise the U.S. interest in 
extraditions, including in Guzman's case, in high-level meetings in the 
months prior to his escape.

    Question. Which members of the political opposition engaged in the 
dialogue did you speak with prior to your testimony in May 2014?

    Answer. I spoke with various members of the diverse Venezuelan 
political opposition, including representatives from the opposition 
coalition (Democratic Unity Roundtable--Mesa de la Unidad Democratica, 
MUD) and several individual political parties, including but not 
limited to Justice First (Primero Justicia), A New Era (Un Nuevo 
Tiempo), and Popular Will (Voluntad Popular).
    Our Embassy in Caracas remains in close contact with the MUD and 
individual political parties, including but not limited to Democratic 
Action (Accion Democratica), Advanced Progressive (Avanzada 
Progresista), Christian Democratic (COPEI), Primero Justicia, Voluntad 
Popular, Vente Venezuela, and Un Nuevo Tiempo. The Embassy's reporting 
on these meetings provides key on-the-ground insights to inform my--and 
other policy makers'--understanding and decisionmaking.
    We strive--here in Washington and in Caracas--to speak with a broad 
spectrum of the population including the opposition, private sector, 
civil society, and government.

    Question. What was your role in the planning the August 14, 2015, 
flag-raising at the U.S. Embassy in Havana?
    Who was responsible for determining the guest list of those invited 
to the flag raising ceremony?
    Since the reestablishment of diplomatic relations with Cuba, the 
U.S. Embassy's Twitter account has covered a wide range of issues such 
as climate change, sports and even promoted Cuban Government officials 
(in the case of Eusebio Leal). Yet, there has not been a single tweet 
promoting human rights and democracy. Why?
    During your tenure as Assistant Secretary of State, have you met 
with representatives of, or attended any events hosted by, Engage Cuba, 
the Trimpa Group, and Cuba Now? If so, please provide a list of the 
dates, individuals involved, and the subject matter of the meetings or 
events attended.

    Answer. The Department of State worked closely with other U.S. 
Government agencies and the U.S. Embassy to plan the August 14 flag-
raising at the U.S. Embassy in Havana.
    In developing the guest list for the events in Havana on August 14, 
the Department of State sought to include as many individuals as 
possible from a broad array of sectors including the U.S. Congress, 
business leaders, civil society, and the general public. Guests also 
included Cuban Government officials.
    The State Department and U.S. Embassy Havana employ a range of 
tools to engage the Government of Cuba on democracy and human rights. 
We have used social media in the past to decry human rights abuses such 
as the early July 2015 beating of Antonio Rodiles. Since reestablishing 
diplomatic relations, we are advocating for human rights directly with 
the Cuban Government. As our bilateral relationship evolves, we will 
continue to advocate on behalf of the Cuban people for fundamental 
freedoms, including the right to peaceful assembly, association, and 
freedom of expression. In his August 14 speech at the flag-raising in 
Havana, which was tweeted by the U.S. Embassy, Secretary Kerry 
delivered a strong message of support for democracy on the island.
    In my capacity as Assistant Secretary of State, I meet regularly 
with a broad array of individuals and organizations to discuss U.S. 
policy toward the Western Hemisphere. During my tenure, I have attended 
events also attended by representatives from a wide and diverse range 
of organizations involved with Cuba, among them the Trimpa Group, 
Engage Cuba, and Cuba Now. At those events where I have engaged in 
conversation with these individuals, we have discussed U.S. policy 
toward Cuba.

    Question. Media reports indicate that human rights experts at the 
State Department concluded that trafficking conditions had not improved 
in Cuba, and thus did not deserve to be upgraded from Tier 3 to Tier 2 
Watch List.
    Did you personally review any drafts of the Cuba section of the 
annual TIP report?
    Did WHA propose any changes to the draft report produced by J/TIP?
    If so, what changes were proposed?
    Did any office or individual at the State Department oppose the 
upgrade of Cuba?
    Please provide:
  <diamond> All prior drafts of the Cuba portion of the TIP report.
  <diamond> The specific changes proposed by WHA.
  <diamond> Names of all State Department and White House officials who 
        signed off on Cuba Section.
  <diamond> Copy of the Cuban Government's national action plan.

    Answer. The State Department has staff working on human trafficking 
issues in Washington and at U.S. embassies around the world. The State 
Department has a dedicated office, the Office to Monitor and Combat 
Trafficking in Persons, which works year-round to gather information 
and produce the annual Trafficking in Persons (TIP) Report.
    Final decisions are reached only after rigorous analysis and 
discussion among officials in the Office to Monitor and Combat 
Trafficking in Persons; staff at the relevant regional bureaus and U.S. 
missions overseas; and senior State Department leadership--including 
myself. The final rankings are then approved by the Secretary of State.
    The process is deliberative and fact-based. It is critical that 
Department officials are able to speak freely and frankly during the 
deliberative process, which ultimately contributes to the integrity of 
the report and the strength of tier-ranking decisions. Moreover, 
discussion of the internal deliberations that informed the Secretary's 
decision would undermine his authority as provided in the TVPA. We 
disclose our methodology in the report; however, we do not release 
earlier drafts of the final product or documents related to 
deliberations during the process.
    The Cuban Government informed the Department in March of 2015 that 
they were developing a national action plan, which would include 
trafficking in persons, but we refer you to the Cuban Embassy in the 
United States for further information on this plan.
    However, in November 2014, the Government of Cuba released a report 
detailing efforts to combat trafficking in persons, which is publicly 
available. (See http://www.cubaminrex.cu/es/informe-de-cuba-sobre-el-
enfrentamiento-juridico-penal-la-trata-de-personas-y-otras-formas-de-
abuso.)

                               __________
               ambassador-designate jacobson's responses 
                   to questions from senator isakson
    Question. Ms. Jacobson, we have heard concerns from U.S. companies 
operating in Mexico that the tactics Mexico's tax authorities have 
employed are overly aggressive and seem to target U.S. global companies 
doing business in Mexico. Specifically, in the context of the OECD Base 
Erosion and Profit Shifting (BEPS) project Mexico has acted 
unilaterally at times which is contrary to its commitments as an OECD 
Member country. Recently, there was an article in the Mexican press 
that has been brought to my attention, where the Mexico SAT has made 
disparaging remarks about the OECD BEPS process and has said they will 
not wait for its conclusion to take unilateral action. This is 
obviously hurting U.S. companies and their ability to do business in 
Mexico and goes against Mexico's treaty commitments, trade agreements 
and their commitment as an OECD member.

  <diamond> Will you continue the work of Ambassador Wayne to ensure 
        that Mexico upholds its commitments to the OECD process and 
        continue to ensure that U.S. businesses aren't unfairly or 
        aggressively targeted?

    Answer. We have heard the same concern from some U.S. companies in 
Mexico regarding this issue. As you note, Ambassador Wayne has raised 
this concern at the highest levels of the Mexican Government, and, if 
confirmed, I will do the same.
    Like any nation, Mexico levies taxes on foreign companies operating 
in its territory. Such taxes should be levied transparently and 
according to clear rules and procedures. Moreover, Mexico's membership 
in the OECD is a reflection and recognition of the size and maturity of 
the Mexican economy. All OECD members share a commitment to respect 
OECD processes and practices.

                               __________
               ambassador-designate jacobson's responses 
                     to questions from senator paul
    Question. What does the Mexican Government need to do to improve 
the situation at the U.S.-Mexican border? And if confirmed as U.S. 
Ambassador to Mexico, what specific steps would you take to help them 
in that regard?

    Answer. Mexico is our second-largest export market and third-
largest trading partner. More than $1.5 billion in daily trade with 
Mexico supports millions of jobs in states throughout both countries. 
President Obama and President Calderon launched the 21st Century Border 
Management Initiative in 2010 to promote economic competitiveness and 
enhance security through the secure, efficient, rapid, and lawful 
movement of goods and people. As one result of that continued close 
cooperation, we saw the completion in November 2014 of the first phase 
of expansion at the busiest land port of entry between the United 
States and Mexico, the San Ysidro-El Chaparral border crossing between 
San Diego and Tijuana, which more than doubled the number of inspection 
booths and significantly reduced vehicle wait times from 3 hours to as 
little as 30 minutes. Likewise, in October 2014 we inaugurated an 
improved port of entry at Nogales, AZ, through which 40 percent of 
Mexican produce bound for U.S. supermarkets passes.
    On the security front, President Pena Nieto's strategy to counter 
transnational crime and improve the situation on our shared border is 
to combine all elements of the Mexican Government to constrain, 
disrupt, and dismantle criminal groups. Law enforcement operations are 
one tool, but the strategy recognizes the need to counter criminal 
networks through disrupting their access to finance, their corrosive 
influence on governments and societies, and through building new 
partnerships. That approach is what you see in Mexico's national 
strategy as well as in the four pillars of our bilateral Merida 
Initiative: to disrupt organized criminal groups, institutionalize 
reforms to sustain the rule of law and support human rights, create a 
21st century border structure, and build strong and resilient 
communities.
    The United States and Mexico are dedicated to addressing shared 
security challenges and modernizing our shared border infrastructure. 
We work closely with our Mexican counterparts to communicate about 
threats along the border and to assess and respond to security issues 
as they develop. If confirmed, I pledge that the safety of U.S. 
Government personnel and U.S. citizens will remain my priority. We will 
continue our support through the Merida Initiative, which enables 
greater cooperation between U.S. and Mexican law enforcement agencies, 
prosecutors, and judges as they share best practices and expand 
bilateral cooperation in tracking criminals, drugs, arms, and money as 
well as our efforts to support economic growth and the secure flow of 
people and goods through the 21st Century Border Initiative.

                               __________

 Responses of Laura Farnworth Dogu, Nominated to be Ambassador to the 
   Republic of Nicaragua, to Questions from Members of the Committee

                 ambassador-designate dogu's responses 
                    to questions from senator corker
    Question. Nicaragua presents a conundrum. On the one hand, it is 
stable and relatively secure and the government pursues comparatively 
sound macroeconomic and investment policies. Nicaragua continues to 
seek partnership with the U.S. though the Central America Free Trade 
agreement. On the other hand, Nicaragua maintains friendly relations 
with governments that are hostile to the U.S. Most institutional power 
is concentrated in the hands of the governing Sandinista Party, dissent 
is muted, and violence is still part of the Sandinistas' political 
toolkit.

  <diamond> What is your assessment and what will your priorities be as 
        Ambassador?

    Answer. I concur with this assessment, both in terms of Nicaragua's 
challenges and opportunities. A vibrant democracy includes 
participation from all sectors, and all sectors have a responsibility 
to contribute. As I mentioned at my hearing, in addition to supporting 
improvements to governance, rule of law, and human rights, we want to 
assist Nicaragua in efforts to integrate more fully into the Central 
American regional economy. Working with youth, universities, and the 
private sector to improve workforce development is a key component of 
this effort. If confirmed, I will ensure the Embassy works with 
partners in the private sector addressing issues such as labor rights, 
trafficking in persons, education, and the environment through 
corporate social responsibility efforts.
    Continued engagement, in partnership with the people of Nicaragua, 
civil society, and the international community, is key to ensuring 
elections reflect the popular will. If confirmed, I will work to 
support the strengthening of democratic institutions and values in 
Nicaragua to reflect the region's collective commitment to the 
promotion and protection of human rights. I also will work to support a 
Nicaragua that is more economically integrated with other Central 
American countries, and that collaborates effectively with us--and 
other stakeholders and donors--on a growing range of issues of interest 
to the people of the United States and Nicaragua. To do so, we will 
build on existing areas of cooperation and seek improved engagement and 
dialogue in those areas where we don't necessarily always agree.
    The Strategy for U.S. Engagement in Central America serves as a 
common guide for ongoing shared efforts promoting prosperity, 
governance, and security with--and throughout--Central America. Key to 
Central America's success is regional economic integration. Central 
America must integrate economically in order to compete globally. With 
this in mind, our engagement with Nicaragua under this strategy will 
advance governance, regional integration, prosperity, and security--and 
thus help us meet the needs and interests of the Nicaraguan people, as 
well as the many other citizens of Central America.

                               __________
                 ambassador-designate dogo's responses 
                   to questions from senator menendez
    Question. According to the State Department's latest human rights 
report, the Nicaraguan executive branch is becoming increasingly 
authoritarian, exercising significant control over the legislative, 
judicial, and electoral branches. Furthermore, the police generally 
deny permission for demonstrations by opposition groups and the 
government uses judicial, financial, and administrative tactics to 
limit freedom of speech and the press.

  <diamond> In a country where political power has become concentrated 
        in a single and increasingly authoritarian party, what is your 
        assessment of U.S-Nicaragua cooperation? If confirmed, what 
        steps will you take to advance U.S interests as well as the 
        efficacy of U.S democracy and governance programs?

    Answer. The U.S.-Nicaragua relationship is complex. We work closely 
with the Nicaraguan Government, but there are areas where cooperation 
can be improved, including on issues relating to democratic governance 
and human rights. U.S. support for democracy and governance in 
Nicaragua is, and will remain if I am confirmed, a top priority for the 
United States. Continued engagement in partnership with the people of 
Nicaragua and the international community is key to ensuring 
independent voices are heard, elections are credible and reflect the 
popular will, irregularities are substantiated and reported on, and 
democratic governance is supported with a long-term perspective. If 
confirmed, I will encourage the development of democratic institutions 
and values, and will continue to support local governance efforts, with 
a focus on civic participation and transparency. I will also continue 
to support the role of civil society and independent media, and will 
expand these efforts as needed.
    The Nicaraguan Government has cooperated with us in resolving a 
significant number of U.S. citizen property compensation claims. 
Additionally, we cooperate on trade issues, counternarcotics, search 
and rescue in cases involving U.S. citizens, disaster preparedness and 
response, the protection of cultural patrimony, consular matters, and 
the return of fugitive U.S. citizens. If confirmed, I will encourage 
mutually beneficial objectives such as Nicaragua's economic integration 
with Central America.

    Question. Nicaragua will be holding Presidential elections in 2016. 
The process, as with all democratic elections, should be held to fair 
and transparent standards. Yet international organizations, such as the 
Carter Center, have found that recent elections in Nicaragua showed 
deeply troubling signs of fraud. There are also widespread concerns 
about the impartiality of the Nicaraguan Electoral Commission and the 
political agenda of the commission's president, Roberto Rivas.

  <diamond> If confirmed, what steps will you take to advocate for the 
        presence of credible international observation? In your view, 
        how can the United States utilize diplomacy to ensure that the 
        2016 elections are carried in a free, fair, and transparent 
        manner?

    Answer. Continued engagement with the people of Nicaragua, civil 
society, and the international community is key to ensuring elections 
reflect the popular will and to ensure that irregularities are 
substantiated and reported when they occur. The U.S. Government will 
work to ensure the 2016 elections are conducted in a free, fair, and 
transparent manner, in addition to continuous work on broader 
democratic governance issues. If confirmed, supporting a Nicaragua with 
transparent democratic institutions and values will be among my highest 
priorities.
    Further, I would plan to continue our outreach to, and support of, 
civil society groups to improve their ability to articulate their views 
to policymakers, monitor and document the election-day process, and 
support citizens to advocate for identification cards which are 
required for voting. The United States also supports civil society, 
democratic youth leadership, and independent media, each of which is 
important to ensuring the 2016 elections are transparent and credible.

    Question. Nicaragua is a recipient of Venezuela's petroleum 
subsidies through Petrocaribe. Venezuela's dire economic situation, 
however, indicates that it is only a matter of time before it begins to 
reduce the amount of subsidized oil it provides.

  <diamond> In your view, how would a reduction of subsidies affect 
        Nicaragua? And, what are the implications such reduction may 
        have for the United States?

    Answer. We have seen press reports indicating there has been a 
reduction in oil shipments under the Petrocaribe program. If 
Petrocaribe were to cease or to significantly decline, a number of 
countries in Central America, including Nicaragua, and the Caribbean 
could face financial challenges. Several countries have expressed a 
desire to transition their energy production from petroleum to other 
more sustainable sources. Of note, Nicaragua has already transitioned 
to obtaining more than half of its electric power from a variety of 
renewable energy sources. The Nicaraguan Government is also already 
preparing its public for smaller subsidized assistance programs or is 
finding other ways to finance the programs in the lead up to 2016 
elections.
    Current U.S. activities, including Connecting the Americas 2022 and 
efforts under the U.S. Strategy for Central America, emphasize 
fostering conditions for investment, including through regulatory 
reform, increasing access to affordable and cleaner energy generation 
and transmission, and promoting competitive, independent, and 
environmentally sustainable energy markets.
    If I am confirmed, I will engage with Nicaragua to further these 
activities, promote its economic integration within Central America, 
and support the adoption of transparent and democratic institutions as 
a more stable and reliable path to economic growth and to reduce 
economic volatility.

                               __________

   Responses of Perry L. Holloway, Nominated to be Ambassador to the 
   Cooperative Republic of Guyana, to Questions from Members of the 
                               Committee

               ambassador-designate holloway's responses 
                   to questions from senator menendez
    Question. For the past several days, Venezuelan President Maduro 
has chosen to focus his efforts on a long-standing border dispute with 
its neighbor Guyana--an action that has caused increased tensions 
between the two countries and negatively affects Guyana in a 
disproportionate way. President Maduro has issued a decree claiming 
Venezuelan control over the waters off the coast of the land being 
disputed, leaving Guyana with barely any offshore area and threatening 
the drilling agreement it has with ExxonMobil.

  <diamond> What is your assessment of the dispute between Guyana and 
        Venezuela? And, to your knowledge, are there any other U.S. 
        interests that could be affected by Maduro's aggressive 
        tactics?

    Answer. Guyana's relationship with Venezuela is complicated by the 
ongoing disputes over territorial boundaries. It is imperative that any 
efforts to resolve this situation be through peaceful means consistent 
with international law, whether that be through the Caribbean 
Community, the Community of Latin American and Caribbean States, the 
Organization of American States, the United Nations, or another 
mechanism agreeable to both parties. We are examining Venezuela's 
recent claims. To assert maritime rights or jurisdiction, Venezuela's 
claims must be consistent with the international law of the sea, 
including respect for the rights and freedoms of other states. The 
uncertainty caused by this dispute has affected Guyana's ability to 
attract investment and otherwise develop its natural resources, and it 
is in the interest of all countries of the region that it be allowed to 
do so.

    Question. The recent elections in Guyana resulted in a change of 
the ruling party--the People's Progressive Party (PPP)--for the first 
time in 23 years. In a country with severe ethnic and sectarian 
divisions, the new administration of David Granger, from the 
Partnership of National Unity (APNU), promises to address these issues 
and create spaces for better ethnic relations. Yet, this important 
milestone occurred as U.S. assistance in Guyana has largely dried up.

  <diamond> How do you view current U.S. cooperation with the Guyanese 
        Government? What specific opportunities do you see for 
        engagement and cooperation with the new ruling party to ensure 
        these democratic processes are strengthened and solidified? 
        What do you think the U.S can do to promote better ethnic 
        relations in Guyana?

    Answer. The United States values its bilateral relationship with 
Guyana. President Granger has expressed a desire to deepen Guyana's 
relationship with the United States, and we are seeing renewed levels 
of engagement with both Embassy Georgetown and the Department by 
Government of Guyana departments and agencies. We will continue to 
engage with President Granger and the Government of Guyana on the full 
range of issues that define our shared interests and that strengthen 
democratic institutions and processes: countering transnational 
organized crime; increasing Guyana's ability to compete within the 
broader global economy; providing economic, social, and political 
opportunities for all citizens; reducing the prevalence of HIV/AIDS; 
and supporting the nation's ability to adapt to climate change and 
manage its natural resources, including in the extractives sectors.
    The United States has always worked to bridge the differences 
between Guyana's ethnic populations and political parties through 
public diplomacy programs and daily engagement by Embassy officials 
with key government and civil society groups. We continue to urge 
President Granger and all elected officials to focus their efforts on 
issues that unite the nation and to move away from the ethnic based 
politics of the past that resulted in unequal economic development and 
social exclusion for large parts of the population.

                               __________

   Responses of Peter F. Mulrean, Nominated to be Ambassador to the 
     Republic of Haiti, to Questions from Members of the Committee

               ambassador-designate mulrean's responses 
                    to questions from senator corker
    Question. After years of deadlock, Haiti's Government appears to be 
committed to organizing elections. Are they really? Is it true that, as 
of June 9, 2015, funding was still about 40 percent short of the 
estimated $66 million needed for the Haitian elections? What is the 
government of Haiti doing to fill that gap?

    Answer. The Government of Haiti is moving forward with three rounds 
of elections, on August 9, October 25, and December 27 of this calendar 
year. The first vote will be for the first round of parliamentary 
elections; the second vote will include a second round of parliamentary 
elections, the first round of Presidential elections, and local 
government positions; the third vote will be the second round of 
Presidential elections. Due to political gridlock which delayed 
elections for almost 4 years, Haiti's independent Provisional Electoral 
Commission (CEP) only began work on the elections in January of this 
year. As a result, there are concerns that the relevant Haitian 
institutions will not be fully ready for the first round on August 9, 
due to delays in hiring and the training of staff. However, the CEP has 
met major deadlines for printing of the ballots and voter registration 
lists and its President, Pierre-Louis Opont, has said there will be no 
delay in holding the first round of voting for Parliament.
    With regard to the shortage of electoral-related funding in the 
basket fund administered by the UNDP, a July 16, 2015, donor conference 
in New York at the United Nations resulted in an additional $14.2 
million in elections funding pledged by the United States, Canada, 
Brazil, Norway, and Mexico. In addition, several other countries that 
did not pledge indicated they were considering additional donations. 
The U.S. pledge was for $9 million, which raises the total amount of 
funding the United States has dedicated to these elections to $27.8 
million, of which $11.5 went to the basket fund and $4 million to UNOPS 
for logistical support, which MINUSTAH provided in the last election. 
The Government of Haiti has said it will cover any funding shortfalls 
for the election.

    Question. Approximately half of all Haitians have access to basic 
health services at U.S.-supported health facilities. This is 
remarkable. But, is it sustainable? What will you do you engage the 
Government of Haiti to take on its own responsibilities to the Haitian 
people?

    Answer. The sustainability of our programs in Haiti depends 
ultimately on the capacity of the Government of Haiti to maintain them, 
reflective in turn of the support of the Haitian people.
    Our development efforts in Haiti are designed to foster economic 
growth, enhance government capacity, strengthen democracy, and improve 
security and respect for rule of law. Progress in these areas will, in 
turn, improve the Government of Haiti's ability to deliver quality 
services and meet the needs of the Haitian people. If confirmed, I will 
continue to advance the efforts of the United States to support the 
long-term goals of the people and Government of Haiti to build and 
realize a more prosperous and secure nation.
    In the health sector, the U.S. Government is supporting the 
Ministry of Health to advance its ownership and oversight of the public 
health system on several fronts. Specifically, our programming is 
helping the Ministry of Health to improve data collection and usage, 
upgrade internal management systems, manage diverse funding sources, 
and improve its ability to attract, train, and retain professional 
health workers. These capacity-building initiatives are laying the 
groundwork for long-term sustainability while continuing efforts to 
improve health outcomes. As we progress in these efforts with the 
Ministry of Health, both directly and in partnership with other donors, 
we will continue to work to ensure that access to health services is 
widely available.

                               __________
               ambassador-designate mulrean's responses 
                   to questions from senator menendez
    Question. Haiti is scheduled to hold its well-overdue legislative 
elections as early as next month, followed by local and Presidential 
elections later in the year. If confirmed, what specific steps will you 
take to advance United States support for the Haitian electoral 
process? More importantly, how will you ensure collaboration and 
commitment with the Haitian authorities to prioritize the security of 
all Haitians both during the time leading up to the election and as 
they go to the polls?

    Answer. If confirmed by the Senate, I will continue the strong 
support of the United States for the holding of credible and long-
overdue elections; this would be one of my highest priorities. 
Political gridlock in Haiti has stalled needed reforms and elections 
are key to ensuring that solutions are identified and implemented. The 
engagement of the United States and our international partners has been 
instrumental in getting the elections scheduled and on track to take 
place this year. These efforts, which include close collaboration with 
President Michel Martelly, Prime Minister Evans Paul, the Provisional 
Electoral Commission (CEP) and major political parties, need to 
continue through the electoral period and beyond in order to help the 
Haitian people address the systemic problems that continue to challenge 
the effectiveness of that country's electoral process and institutions.
    We have also been heavily engaged with MINUSTAH, the Haitian 
National Police (HNP), and the CEP as Haiti finalizes its electoral 
security plan. The recent reduction in the U.N.'s military footprint 
requires the HNP to increasingly take responsibility for nationwide 
security. The scale of the elections and the HNP's limited resources, 
including personnel and vehicle shortfalls, will challenge the force to 
maintain order if widespread disturbances occur. The HNP has sought and 
will require significant assistance to undertake the roles MINUSTAH 
performed in previous elections. To this end, the U.S. has committed 
over $30 million dollars in support of these elections, including some 
$2.8 million in vehicles, spare parts to repair inoperable vehicles, 
and communications equipment to improve the HNP's security and 
logistics posture.

    Question. The United Nations Stabilization Mission in Haiti 
(MINUSTAH) has supported Haiti with police and military personnel. 
However, these efforts are only temporary until the Haitian National 
Police is strengthened and capable of sustaining the security of the 
country. In your view, how is the Haitian Government working to improve 
the Haitian National Police capabilities. How is the United States 
supporting these efforts?

    Answer. The United States has had an excellent working relationship 
with the Haitian National Police (HNP). The Haitian Government 
established a 5-year police development plan in 2012 aiming to grow the 
force to 15,000 officers by the end of 2016 and improve its 
professionalism; U.S. efforts are aligned to help the Haitian 
Government achieve these goals. Thanks to generous funding provided by 
the U.S. Congress for the HNP--over $200 million since the earthquake--
we have assisted the HNP's growth by about 1,000 officers a year, to a 
current level of 12,200 officers. We recently funded improvements to 
the Police School that will enable basic training classes of 1,500 
cadets a year to help the HNP toward its growth target. Our support for 
police training, as well as that of the Government of Canada and 
MINUSTAH, has made the HNP the most respected Haitian Government 
institution with a majority of Haitians trusting their police according 
to Department of State polling. Haiti's successful pilot community 
policing unit in Port-au-Prince, supported by a U.S.-funded partnership 
with the New York Police Department and by MINUSTAH, is growing and 
expanding to additional provinces. We provide embedded mentors in key 
HNP offices to improve strategic planning, budget, career development, 
and logistics capabilities, all aimed at improving the force's ability 
to sustain itself. Since the 2010 earthquake, we have improved police 
infrastructure by building six police stations and installing 
facilities for Haiti's counternarcotics police to enable their 
deployment around the country. The HNP's performance has improved, most 
notably in antikidnapping investigations and crowd control capacities. 
The HNP now rarely calls on MINUSTAH quick reaction support and has 
been largely effective in managing recent politically motivated 
protests. Early 2015 saw a relative lull in protest activity, and 
although violence against MINUSTAH and HNP personnel has increased, 
Haiti remains secure overall.

    Question. During the past month, more than 17,000 Haitian migrants 
in the Dominican Republic have voluntarily chosen to return to Haiti. 
This number is expected to increase given the current policies in the 
Dominican Republic to regularize unauthorized migration in the country. 
There is concern that the large quantities of individuals returning to 
Haiti may overwhelm Haitian authorities, who 
may not have the capacity of the Haitian Government to adequately 
receive all returnees.

  <diamond> Can you describe our current cooperation with the 
        Government of Haiti to ensure an appropriate screening process? 
        If confirmed, what steps will you take to ensure that Haitian 
        returnees are afforded a fair process of reintegration to 
        Haitian society?

    Answer. The United States has been in close contact with the 
Government of Haiti to understand its contingency planning on how to 
process Haitian nationals being returned to Haiti or Dominicans of 
Haitian descent who arrive in Haiti. Embassy staff and implementing 
partners have also monitored the actual situation of arrivals from the 
Dominican Republic to better understand the situation and any 
humanitarian needs.
    The United States is funding civil society organizations and 
international organizations, including the International Organization 
for Migration (IOM). IOM, in coordination with local civil society, is 
monitoring population movements at the border and referring people in 
need of protection, especially unaccompanied children.
    We are encouraging the governments of both Haiti and the Dominican 
Republic to consult and collaborate with each other and with civil 
society groups and international organizations to develop processes 
that uphold the rule of law, provide procedural safeguards, and are 
consistent with each country's international obligations and 
commitments. Our Ambassador to Haiti has also led international 
engagement efforts to assist the Haitian Government in proactively 
managing increases in movements across the border. If confirmed by the 
Senate, I will continue robust engagement with the Haitian authorities 
on their efforts to manage this immediate issue and build capacity more 
generally in managing movement at their borders.

    Question. Haitian workers continue to suffer restrictions on 
freedom of association, minimum wage violations, and other labor rights 
abuses, despite the promises of the HOPE II to bring attention to labor 
conditions. The United States last trade union program, funded by the 
Department of Labor, was shuttered in May.

  <diamond> As Ambassador, how will you ensure that Haiti's workers and 
        unions get the support and capacity-building they need to 
        advocate for better labor rights enforcement and working 
        conditions?

    Answer. Since the implementation of the HOPE II legislation, 
producer compliance with the international core labor standards--which 
include freedom of association, the elimination of all forms of 
compulsory or forced labor, the abolition of child labor, and the 
elimination of discrimination--has improved, and there has been 
significant progress in relations between factoryowners and labor 
advocates. For example, during the last official identification cycle 
by the U.S. Government for noncompliance, only one producer out of 23 
eligible producers was identified as noncompliant with one or more core 
labor standards, and that producer has reinstated all of the union 
members seeking reinstatement who were the subject of the noncompliance 
finding. In addition, through the Social Dialogue Table established in 
March 2014 to create a space for dialogue, textile workers and 
factoryowners were able to hold successful minimum wage negotiations 
and submit consolidated recommendations to Haiti's Superior Wage 
Council (CSS) for consideration. The CSS adopted a number of 
recommendations made by the Social Dialogue Table, becoming the first 
successful union-management minimum wage negotiation in the history of 
Haiti's textile industry.
    The Government of Haiti has also actively engaged with both the 
International Labor Organization (ILO) and the U.S. Government in all 
aspects of the HOPE II implementation program and is building its 
capacity to monitor and inspect textile factories and mediate disputes. 
The ILO's Better Work Haiti program, funded by the U.S. Government, has 
continued to perform factory assessments, provide compliance advisory 
services, and issue the biannual reports required under the HOPE II 
legislation. While the reports show that there have been improvements 
in regards to the core labor standards and some aspects of working 
conditions, lasting solutions need to be developed in categories such 
as occupational safety and health. To meet this need, Better Work Haiti 
is placing a greater emphasis on in-depth advisory and training 
services with the aim of promoting more sustainable solutions to the 
compliance problems that have persisted in the sector.
    The U.S. Government's program to build the capacity of worker 
organizations closed in May 2015. If confirmed by the Senate, I will 
give labor issues priority attention and the Embassy, in partnership 
with other partners, most notably the ILO and the Government of Haiti's 
Office of the Ombudsperson, will continue to engage directly with 
worker organizations in Haiti to ensure ongoing support for unions in 
their efforts to represent the interests of apparel sector workers in 
Haiti.

    Question. More than 17,000 Haitians have voluntarily chosen to 
return from the Dominican Republic. This number is expected to increase 
in the following months as the Dominican Republic moves forward with 
the implementation of its migration policies.

  <diamond> In your view, what is the effect that the large quantity of 
        returnees will have in the elections?

    Answer. We are carefully monitoring these returns and are heavily 
engaged on migration concerns with the Governments of Haiti and the 
Dominican Republic, as well as international organizations and NGOs. To 
date the spontaneous returns have not resulted in a significant 
humanitarian crisis, although we stand ready to assist the Government 
of Haiti should numbers increase substantially. The Government of the 
Dominican Republic has indicated that there will be no large-scale 
deportations. So far we have not seen any significant effect on Haiti's 
election planning.

                               __________


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 22, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Paul Wayne Jones, of Maryland, to be Ambassador to the 
        Republic of Poland
Hon. Hans G. Klemm, of Michigan, to be Ambassador to Romania
Kathleen Ann Doherty, of New York, to be Ambassador to the 
        Republic of Cyprus
James Desmond Melville, Jr., of New Jersey, to be Ambassador to 
        the Republic of Estonia
Samuel D. Heins, of Minnesota, to be Ambassador to the Kingdom 
        of Norway
Thomas O. Melia, of Maryland, to be an Assistant Administrator 
        of the U.S. Agency for International Development
                              ----------                              

    The committee met, pursuant to notice, at 2:09 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson, Shaheen, and Menendez
    Also present: Senators Amy Klobuchar and Al Franken.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good afternoon. This hearing of the 
European subcommittee of the Senate Foreign Relations Committee 
is called to order.
    Welcome, Senator Klobuchar and Senator Franken from 
Minnesota, to introduce our first nominee, Mr. Samuel D. Heins. 
If the good Senators would offer their introductions, we would 
appreciate it.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. And 
thank you very much for holding this hearing. I know your 
State, like ours, has a lot of Norwegians, so we appreciate it.
    Senator Johnson. I am one of them.
    Senator Klobuchar. Well, I could not have guessed, with 
your last name.
    I am proud to be here today to introduce Sam Heins, the 
nominee to serve as U.S. Ambassador to Norway.
    Before I begin, I would like to take a moment to note that 
today marks exactly 4 years since the terrorist attacks that 
claimed 77 lives in Oslo and Utoya. A number of remembrance 
ceremonies are taking place across Norway, and the victims and 
their loved ones are in our thoughts and prayers.
    I think it is a somber day, but it is also a very important 
day to show our solidarity with Norway and rededicate ourselves 
to the friendships between our countries. And getting an 
ambassador confirmed would be a major step forward.
    As a Senator from the State, as I noted, that is home to 
800,000 people of Norwegian heritage, really more than anywhere 
except Norway itself, I think it is only fitting that the 
nominee to be the United States Ambassador to Norway be from 
Minnesota.
    As the Norwegian Ambassador to the United States Kare Aas 
noted, the ties between the Midwest and Norway are strong, and 
nowhere are they more deeply felt than in Minnesota.
    Of course, there is much more to our nominee Sam Heins than 
the fact that he has Minnesota heritage. In addition to being 
an accomplished lawyer, Mr. Heins has demonstrated his devotion 
to, and leadership in, the cause of advancing human rights. In 
1982, he founded, organized, and served as the first board 
chair for the Minnesota Advocates for Human Rights, which 
monitors and responds to human rights abuses throughout the 
world.
    In 1985, he cofounded the Center for Victims of Torture, 
which provides services, research, and advocacy for victims of 
torture from across the world, where he continues to serve as a 
board member. It started as a humble rehabilitation center in 
St. Paul. Today, the center that our nominee founded is an 
internationally recognized organization that operates around 
the globe, providing desperately needed help to those who have 
been victimized by repression and violence.
    This record of accomplishment is particularly appropriate 
for an Ambassador to Norway. Norway has long been an 
international leader on human rights issues. Just last month, 
for example, the United States and Norway issued a joint 
statement of support for international programs initiated by 
Freedom House and other like-minded groups to help civil 
society organizations around the world that have been 
threatened with violence as the result of their human rights 
advocacy.
    Mr. Heins' extensive work on human rights and with NGOs 
that support human rights will be extremely helpful in 
sustaining and building on the strong United States-Norwegian 
partnership in this area. Norway is one of our strongest and 
most dependable international allies. We know of their 
important NATO involvement, especially on this committee you 
know that. And its military has participated in operations with 
the United States in the Balkans and in Afghanistan.
    Norwegians work alongside Americans in standing up to 
Russian provocations in Ukraine, in countering ISIS and the 
spread of violent extremism.
    As such, Norway deserves an ambassador who understands the 
country and is deeply committed to the relationship. We all 
know, for a variety of reasons, as of today, it has been 663 
days that Norway has not had an ambassador. The Foreign 
Minister was in to see me and he actually knew the exact number 
of days.
    So I am very pleased, Mr. Chairman, that you and Chairman 
Corker were willing to hold this hearing so quickly after Mr. 
Heins has been nominated, so we can remedy the situation, which 
you did not cause. And I thank you so much for holding this 
hearing.
    Senator Johnson. I appreciate you acknowledging that, and I 
also appreciate your persistence.
    You have a tireless advocate there, Mr. Heins.
    Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Chairman Johnson, for holding 
this very important confirmation hearing. The chairman is not 
just a Norwegian-American. He actually grew up in Minnesota.
    Senator Klobuchar. Yes, I know that. I heard that.
    Senator Franken. He does not like to admit it.
    Senator Johnson. That could be used against me, so be 
careful. [Laughter.]
    Senator Franken. And he is a tremendous Vikings fan because 
of that.
    Senator Johnson. That will be used against me. [Laughter.]
    It is also not true.
    Senator Klobuchar. That record will reflect that is not 
true.
    Senator Franken. The record will reflect that is not true.
    Senator Johnson. We do have some Super Bowls under our 
belt.
    Senator Franken. You do. We have some Super Bowls under our 
belt. We lost them all, but they are under our belt.
    But, as you know, and as I think Senator Klobuchar 
mentioned, about 20 percent of Minnesotans trace their ancestry 
to Norway, and we have more Norwegian Americans living in 
Minnesota than in any other State and, as you just said, 
anywhere else but in Norway.
    Norway and Minnesota enjoy a very productive bilateral 
relationship. Our universities collaborate on research 
projects. We collaborate in areas of renewable energy, health 
care, and other areas. And, of course, as you know, Mr. 
Chairman, our nations cooperate on very important security 
issues.
    So it is very fitting that Sam Heins, a distinguished 
Minnesotan, has been nominated to serve as our next Ambassador 
to Norway. Mr. Heins is a graduate of the University of 
Minnesota, and he is a brilliant lawyer. He has been a great 
voice on behalf of women's rights, on human rights, refugees, 
just to name a few, and he has worked tirelessly to make sure 
that victims of torture receive the services that they need.
    I am pleased that he was nominated to serve as Ambassador 
to Norway after this long vacancy, and I look forward to his 
speedy confirmation.
    I thank you and Senator Corker.
    Senator Johnson. Thank you, Senator Franken. Remind me not 
to invite you to another hearing. [Laughter.]
    Senator Franken. Okay. I will do that.
    Senator Johnson. No, really, I thank both of the good 
Senators from Minnesota for coming in and offering those kind 
words of introduction.
    And I would ask the other nominees now to be seated at the 
table, and we will continue on with the hearing.
    It looks like we could have used just a slightly bigger 
table, but it looks like we squeezed you all in there.
    Again, I want to welcome all of the nominees. I want to 
thank you for your previous service to the Nation and your 
willingness to serve as Ambassador of our Nation to the 
countries we are going to be handling nominations for: 
Ambassador to the Kingdom of Norway, Ambassador to Poland, 
Ambassador to Romania, Ambassador to Cyprus, Ambassador to 
Estonia, and nominee for the Assistant Administrator for Europe 
and Eurasia at USAID.
    I am very happy to help move these nominations along. These 
are critical posts. It is extremely important that America is 
well-represented, and I assume, being patriots, you will do a 
good job of conveying, from my standpoint, American values to 
those countries, but at the same time recognize that your role 
is to make sure that we as elected officials of America 
understand the viewpoints of those countries to which you are 
going to be Ambassadors.
    It is a critically important role, and, again, I am just 
very pleased that we are moving these nominations along in an 
expedited fashion so that our Nation will be well-represented 
in these countries.
    With that, I will turn it over to our ranking member, 
Senator Shaheen.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Shaheen. Thank you, Mr. Chairman.
    I would just like to echo the chairman's comments about 
appreciation for your willingness to continue to serve this 
country and to serve in very important roles in Europe.
    For a number of years, I think we viewed Europe as our most 
important ally, and we were well on the way to a Europe that 
was whole and free and at peace. Sadly, we are not in that 
position today.
    So your willingness to serve at a time when there is 
continued financial upheaval in Europe, as well as the threat 
from Russia and from ISIS, is absolutely critical.
    So thank you very much, and I look forward to hearing your 
testimony.
    Senator Johnson. Thank you, Senator Shaheen.
    We will just go from left to right. I will just introduce 
the nominees before you testify. Our first nominee is 
Ambassador Paul Wayne Jones, a nominee for the Ambassador to 
Poland. Ambassador Jones is a career member of the Foreign 
Service and currently serves as Principal Deputy Assistant 
Secretary of State in the Bureau of European and Eurasian 
Affairs, a position he has held since 2013.
    Ambassador Jones.

        STATEMENT OF PAUL WAYNE JONES, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF POLAND

    Ambassador Jones. Thank you, Mr. Chairman, and committee 
members. It is a privilege to appear before you as President 
Obama's nominee to serve as United States Ambassador to the 
Republic of Poland. I am honored by the trust and confidence 
that President Obama and Secretary Kerry have placed in me.
    With your permission, I would like to take this opportunity 
to briefly introduce some family members here today. My wife 
Catherine and I have been representing the United States 
together for the past 20 years of our marriage. Catherine, an 
award-winning author and mobile app developer, has lived in 
more countries than I have as the daughter of a retired U.S. 
Foreign Service officer and Ambassador Brandon Grove, whom I 
would also like to introduce.
    We are so proud of our two children, Allie and Hale, who 
have been on the Foreign Service road with us since birth.
    My brother-in-law, Paul Grove, is well-known for a 
distinguished career here in the Senate, as well as his wife, 
Martha, similarly at the National Archives, and their children 
Ella and Sam.
    I regret that my father, a World War II veteran, did not 
live to see this day.
    Mr. Chairman, I bring broad experience to this position, 
having served overseas on four continents, as well as in 
Washington over the past 28 years, including as Ambassador and 
three times as deputy chief of mission. I also bring intensive 
current experience from the past 2 years as Principal Deputy 
Assistant Secretary of State for Europe and Eurasia, where I 
have been responsible for U.S. relations with Europe, 
particularly Russia and Ukraine, as principal deputy to 
Assistant Secretary Toria Nuland.
    I am honored to be nominated to succeed Ambassador Steve 
Mull, a longtime friend who has served with distinction for the 
past 3 years, together with an extraordinary team of Americans 
and Poles at our Embassy in Warsaw and our consulate in Krakow.
    Today, Poland has become one of our closest and most 
capable NATO allies, a relationship that at its core is founded 
on democratic values and a shared commitment to policies that 
provide peace and prosperity for our peoples.
    Poland will host the 2016 NATO summit, an example of its 
growing transatlantic and regional security role. The alliance 
will review implementation of its readiness action plan, which 
includes strengthening the headquarters of Multinational Corps 
Northeast in Poland and standing up NATO's new spearhead force, 
which conducted its first live training exercise last month in 
Poland.
    For its part, Poland is strengthening the alliance through 
its 10-year, $45 billion defense modernization program; its 
commitment now enshrined in law to invest at least 2 percent of 
its gross domestic product in annual defense spending; and its 
future hosting of a U.S. site for NATO ballistic missile 
defense.
    Poland has shared our sacrifice in Iraq and Afghanistan, is 
contributing to NATO's mission in Afghanistan today, and is a 
member of the counter-ISIL coalition.
    Mr. Chairman, as President Obama said in his June 2014 
visit to Warsaw, the United States has an unwavering commitment 
to Poland's security through our shared Article 5 obligations. 
In the wake of Russia's actions in Ukraine, we have 
demonstrated this commitment.
    The United States maintains a persistent rotational 
military presence in Poland, complemented by significant U.S. 
and NATO air, land, and sea exercises in Poland and in the 
region. And as Secretary Carter announced last month, we will 
begin prepositioning military equipment and materiel in Central 
and Eastern Europe, a large portion of which will be in Poland.
    Our relationship with Poland takes inspiration from the 
strong cultural ties between our peoples, fostered by a vibrant 
community of some 10 million Polish Americans. Since the fall 
of communism in 1989, Poland has set a standard of democratic 
and economic reform based on shared transatlantic values. A 
staunch supporter of Ukraine, Poland has provided Ukraine 
financial, decentralization, anticorruption, and security 
assistance. Poland is also one of the top contributors of 
monitors to the OSCE special monitoring mission in Ukraine.
    The United States and Poland enjoy very strong economic 
ties. U.S. exports to Poland have grown 22 percent since 2009, 
supporting tens of thousands of American jobs. U.S. defense 
companies are full partners in Poland's defense modernization. 
And the recent selection of Raytheon's Patriot system will 
strengthen those ties and sustain jobs here at home.
    The United States is a leading and growing source of 
investment in Poland across a wide range of sectors. While 
security is the foundation of our relationship, particularly 
today, if confirmed, I will seek to deepen our ties across the 
board, from education exchanges and entrepreneurship to trade, 
investment and innovation, energy security, science and 
technology, law enforcement, and counterterrorism.
    Mr. Chairman, if confirmed, I look forward to working with 
this committee and with Congress. I am happy to address your 
comments and questions.
    Thank you very much.
    [The prepared statement of Ambassador Jones follows:]

           Prepared Statement of Ambassador Paul Wayne Jones

    Mr. Chairman and committee members, it is a privilege to appear 
before you as President Obama's nominee to serve as United States 
Ambassador to the Republic of Poland. I am honored by the trust and 
confidence President Obama and Secretary Kerry have placed in me.
    With your permission, I'd like to take this opportunity to 
introduce some family members here today. My wife, Catherine, and I 
have represented the United States together for the past 20 years of 
our marriage. Catherine, an award-winning author and mobile app 
developer, has lived in more countries than I have, as the daughter of 
retired U.S. Foreign Service officer and Ambassador Brandon Grove, whom 
I'd also like to introduce. We're so proud of our two children, Allie 
and Hale, who have been on the Foreign Service road with us since 
birth. My brother-in-law, Paul Grove, is well known from a 
distinguished career here in the Senate, and his wife, Martha, 
similarly at the National Archives. I regret my father, a World War II 
veteran, did not live to see this day.
    Mr. Chairman, I bring broad experience to this position, having 
served overseas on four continents as well as in Washington over the 
past 28 years, including as Ambassador and three times as deputy chief 
of mission. I also bring intensive current experience from the past 2 
years as Principal Deputy Assistant Secretary of State for Europe and 
Eurasia, where I have been responsible for U.S. relations with Europe, 
particularly Russia and Ukraine, as principal deputy to Assistant 
Secretary Toria Nuland.
    I'm honored to be nominated to succeed Ambassador Steve Mull, a 
longtime friend who has served with distinction for the past 3 years, 
together with an extraordinary team of Americans and Poles at our 
Embassy in Warsaw and consulate in Krakow.
    Today, Poland has become one of our closest, most capable NATO 
allies, a relationship that at its core is founded on democratic values 
and shared commitments to policies that provide peace and prosperity 
for our peoples. Poland will host the 2016 NATO summit, an example of 
its growing transatlantic and regional security role. The alliance will 
review implementation of its Readiness Action Plan, which includes 
strengthening the headquarters of Multinational Corps Northeast in 
Poland and standing up NATO's new spearhead force, which conducted its 
first live training exercise in Poland last month.
    For its part, Poland is strengthening the alliance through its 10-
year, $45 billion defense modernization plan; its commitment, now 
enshrined in law, to invest at least 2 percent of its gross domestic 
product in annual defense spending; and its future hosting of a U.S. 
site for NATO ballistic missile defense. Poland has shared our 
sacrifice in Iraq and Afghanistan, is contributing to NATO's mission in 
Afghanistan, and is a member of the Counter-ISIL coalition.
    As President Obama said in his June 2014 visit to Warsaw, the 
United States has an ``unwavering commitment to Poland's security'' 
through our shared Article 5 obligations. In the wake of Russia's 
actions in Ukraine, we have demonstrated this commitment. The United 
States maintains a persistent, rotational military presence in Poland, 
complemented by significant U.S. and NATO air, land, and sea exercises 
in Poland and the region. And as Secretary Carter announced last month, 
we will begin prepositioning military equipment and materiel in Central 
and Eastern Europe, a large portion of which will be in Poland.
    Our relationship with Poland takes inspiration from the strong 
cultural ties between our peoples, fostered by a vibrant community of 
some 10 million Polish-Americans. Since the fall of communism in 1989, 
Poland has set a standard of democratic and economic reform based on 
shared transatlantic values. A staunch supporter of Ukraine, Poland has 
provided Ukraine financial, decentralization, anticorruption, and 
security assistance. Poland is also one of the top contributors of 
monitors to the OSCE Special Monitoring Mission in Ukraine.
    The United States and Poland enjoy strong economic ties. U.S. 
exports to Poland have grown 22 percent since 2009, supporting tens of 
thousands of American jobs. U.S. defense companies are full partners in 
Poland's defense modernization, and the recent selection of Raytheon's 
Patriot system will strengthen these ties and sustain jobs at home. The 
United States is a leading and growing source of investment in Poland 
across a wide range of sectors.
    While security is the foundation of our relationship, particularly 
today, if confirmed I will seek to deepen our ties across the board, 
from education, exchanges and entrepreneurship, to trade, investment, 
and innovation, energy security, science and technology, law 
enforcement, and counterterrorism.
    Mr. Chairman, if confirmed, I look forward to working with this 
committee and Congress. I am happy to address your comments and 
questions. Thank you.

    Senator Johnson. Thank you, Mr. Ambassador Jones.
    Our next nominee is Ambassador Hans Klemm, a nominee for 
Ambassador to Romania.
    Ambassador Klemm is a career member of the Foreign Service 
and currently serves as senior adviser to the Under Secretary 
for Management at the Department of State, a position he has 
held since January 2015. He previously served in posts in 
Germany, Japan, and South Korea.
    Ambassador Klemm.

          STATEMENT OF HON. HANS G. KLEMM, NOMINATED 
                  TO BE AMBASSADOR TO ROMANIA

    Ambassador Klemm. Thank you, Mr. Chairman, Senator Shaheen, 
and distinguished members of the Senate Foreign Relations 
Committee. It is an honor for me to appear before you today as 
President Obama's nominee to be the next United States 
Ambassador to Romania. I am humbled and grateful for the 
confidence that the President and Secretary Kerry have placed 
in me.
    If confirmed, I pledge to promote our interests, protect 
American citizens, and encourage even stronger ties with our 
excellent ally and strategic partner, Romania.
    Mr. Chairman, I wish to note with regret that my wife, 
Mari, is not here today due to professional obligations that 
kept her overseas. If confirmed, however, Mari will eagerly 
join me in support of our mission in Bucharest.
    Romania is a staunch NATO ally and a significant 
contributor to international peace and security. For years, it 
has been among the top 10 countries providing troops in 
Afghanistan, first to the International Security Assistance 
Force and now to the Resolute Support mission. As a 
demonstration of its commitment to European defense, Romania is 
hosting a European-phased adaptive approach missile defense 
site.
    Romania is also home to a forward operating site, which 
hosts hundreds of U.S. Marines and U.S. Army personnel and 
serves as an important regional logistics hub. And Romania has 
stood firmly aside the United States in responding to Russian 
aggression in the region.
    If confirmed, I will work resolutely to further strengthen 
both Romania's role within NATO and our bilateral military 
partnership.
    Romania also has a key role to play in ensuring the 
prosperity of southeastern Europe. With its long history of 
domestic oil and gas production, it is well-placed to help 
Europe diversify sources and transit routes for energy. To do 
so, however, Romania must support regional energy cooperation 
and diversification, and the efficiency of its domestic gas 
transmission network.
    If confirmed, I will seek to deepen our engagement with 
Romania in the area of energy security.
    The information technology sector is another that has 
tremendous potential in Romania, as suggested by the growing 
presence of American firms in that country. We urge Romania to 
make further reforms to boost its economic development and the 
prosperity of its people, including creating more opportunity 
for American exports and investment.
    If confirmed, I look forward to working with the Romanian 
Government and both of our private sectors to promote bilateral 
trade and investment, including the negotiations toward a 
transatlantic trade and investment partnership.
    Last but perhaps most importantly, as you know, Mr. 
Chairman, Romania has been engaged in an extended, serious 
effort to root out high-level corruption and improve adherence 
to the rule of law. As Vice President Biden said during a visit 
to Bucharest last year, corruption represents a clear and 
present danger to a country's national security.
    To tackle corruption, a scourge that affects the lives of 
all its citizens, Romania has stood up powerful, independent 
law enforcement and judicial entities. Scores of local, 
regional, and national officials have been investigated, 
indicted, and convicted.
    If confirmed, I pledge to redouble our support to Romania's 
anticorruption institutions and civil society to bolster the 
country's adherence to the rule of law.
    Senators, Romania is a friend and strategic partner and a 
stalwart ally. If confirmed, I pledge to work with you on the 
many areas of U.S. interest in Romania. I will also look 
forward to welcoming you to Bucharest, where you will see 
firsthand the outstanding work our Embassy is doing on behalf 
of the American people. Thank you.
    [The prepared statement of Ambassador Klemm follows:]

             Prepared Statement of Ambassador Hans G. Klemm

    Thank you Mr. Chairman, Senator Shaheen, and distinguished members 
of the Senate Foreign Relations Committee.
    It is an honor for me to appear before you as President Obama's 
nominee to be the United States Ambassador to Romania.
    I am humbled and grateful for the confidence that President Obama 
and Secretary Kerry have placed in me. If confirmed, I pledge to 
promote our interests, protect American citizens, and encourage even 
stronger ties with our excellent ally and strategic partner, Romania.
    Mister Chairman, before beginning my remarks, I would like to note 
with regret that my wife, Mari, could not be here today due to 
professional obligations. If I am confirmed, Mari greatly looks forward 
to supporting our mission in Bucharest.
    Romania is a staunch NATO ally and a significant contributor to 
international peace and security. For years, it has been among the top 
10 countries providing troops in Afghanistan both to the International 
Security Assistance Force and now, Resolute Support Mission--saving 
U.S. taxpayers tens of millions of dollars by deploying and returning 
its own troops using Romania's own capabilities. I am proud to say that 
the United States helped Romania to develop these capabilities through 
an Excess Defense Articles grant of several C-130s. If confirmed, I 
will build on this cooperation to further increase Romanian defense 
capabilities and strengthen the alliance.
    I also wanted to take a moment to publicly acknowledge Romania's 
commitment to European defense. Romania is hosting the U.S. site at 
Deveselu for NATO ballistic missile defense--the first new U.S. Navy 
facility in the European theater since Souda Bay in Crete. Romania is 
also home to our Forward Operating Site at Mihail Kogalniceanu, which 
hosts hundreds of U.S. Marines and U.S. Army personnel and serves as an 
important logistics hub for TRANSCOM. These examples of Romania's 
commitment are also the result of our excellent bilateral defense 
cooperation. Our military leaders at EUCOM, the European combatant 
command, and here in Washington, working together with the Department 
of State and across the interagency, have done a superb job in laying 
the foundation of this relationship. And if confirmed, I will rely on 
their expertise and advice to build on these successes.
    Romania has stood with us in responding to Russian aggression in 
the region. Its leaders condemned Russian violations of Ukrainian 
sovereignty and have urged European Union solidarity on sanctions 
against Russia--including increasing them, if necessary, until Russia 
reverses course. Romania has provided humanitarian and development 
assistance to Ukraine and leads the NATO Cybersecurity Trust Fund for 
Ukraine. If confirmed, I hope to consult often with the Romanian 
Government on the best united course of action to resolve the conflict.
    On the economic and energy fronts, Romania has a key role to play 
in ensuring the prosperity of southeastern Europe. With its long 
history of domestic oil and gas production and openness to exploration, 
Romania is well placed to help Europe diversify sources and transit 
routes for energy. Over time, we hope that Romania's role in the 
production and transit of energy for the region will grow. But in order 
to do so, Romania should advance priority projects that enhance 
regional energy cooperation, efficiency, and diversification--including 
upgrades to its domestic gas transmission network and improved 
interconnections with its neighbors. We applaud Romania's efforts to 
build a pipeline to Moldova, which will help that country benefit from 
an integrated European energy market. Our engagement with Romania in 
the energy sector has been robust and collaborative. To foster 
continued growth and attract continued investment, Romania must ensure 
that it has the appropriate regulatory and policy framework. If 
confirmed, I will continue our strong engagement on these issues.
    Romania has supported the Transatlantic Trade and Investment 
Partnership Agreement, which will create jobs and economic growth on 
both sides of the Atlantic. Romania has improved its investment 
climate, and its economy is one of few among European Union members in 
recent years to achieve close to 3 percent growth. Romania enjoys 
several advantages, including a skilled, multilingual labor force and a 
strategic location bridging Europe with Central Asia, the Caucasus, and 
the Middle East. The information technology sector has tremendous 
potential in Romania, as evidenced by the growing presence of American 
firms and the overwhelmingly positive response to the recent cyber-
security trade mission led by Department of Commerce Deputy Secretary 
Bruce Andrews. Now, Romania still needs to undertake further reforms. 
The United States has encouraged Romania to continue to professionalize 
the management of state-owned enterprises, strengthen its regulatory 
framework, and increase transparency in official decisionmaking. These 
reforms are crucial to increase the well-being of the Romanian people 
and create more opportunity for Romanian and American companies. If 
confirmed, I look forward to working with the Romanian Government and 
private sector to make more progress on these fronts.
    Last but perhaps most important, Romania has been engaged in a 
years-long, serious effort to root out high-level corruption and 
improve adherence to the rule of law. As Vice President Biden said 
during a visit to Bucharest last year, corruption represents a clear 
and present danger to a country's national security, and outside forces 
exploit these weaknesses to exercise malign influence and undermine the 
independence of sovereign countries. That is exactly why we have been 
so engaged in helping Romania sustain empowered, independent entities 
to tackle an issue that affects the lives of all Romanians. We are also 
helping Romania to focus on asset forfeiture, transparency initiatives, 
and on supporting the next generation of reformers. Altogether, Romania 
has made significant achievements in fighting corruption. Scores of 
local, regional, and national officials have been investigated, 
indicted and convicted on corruption charges. We must remain engaged 
with our Romanian partners to help ensure continued progress and that 
Romania's anticorruption institutions have the freedom and independence 
to act, and to ensure the Romanian people will see no backsliding on 
the hard-won progress made so far. If confirmed, I will support 
Romania's anticorruption institutions and civil society to strengthen 
adherence to the rule of law.
    We have many agencies represented at Embassy Bucharest. Besides the 
Department of State, there is the Department of Defense, FBI, U.S. 
Secret Service, the Drug Enforcement Administration, the Department of 
Justice, Department of Commerce, and Department of Agriculture, in 
addition to others. If confirmed, ensuring the Embassy's efficient and 
effective operation and its good stewardship of taxpayers dollars will 
be among my top priorities.
    Senators, Romania is a strategically important friend and stalwart 
ally that has made great strides in transforming itself, even as it 
helps us to keep a watchful eye on Russia's destabilizing actions in 
the region. If confirmed, I will work with you and your colleagues on 
the many areas of U.S. interest and look forward to welcoming you all 
to Bucharest, where you can see firsthand the outstanding work our 
Embassy is doing on behalf of the American people and in support of our 
strategic partnership. Thank you.

    Senator Johnson. Thank you, Ambassador Klemm.
    Our next nominee is Mr. Samuel Heins, a nominee for the 
ambassadorship to the Kingdom of Norway. Mr. Heins was a 
partner at Heins Mills & Olson in Minneapolis, MN, from 1994 to 
2013.
    In 1983, he founded Minnesota Advocates for Human Rights, 
where he continues to serve as a member.
    Mr. Heins.

         STATEMENT OF SAMUEL D. HEINS, NOMINATED TO BE 
              AMBASSADOR TO THE KINGDOM OF NORWAY

    Mr. Heins. Thank you, Chairman Johnson, Senator Shaheen, 
and members of the committee, for the opportunity to appear 
before you today.
    I would also like to thank Senator Klobuchar and Senator 
Franken for their generous remarks. I hope I can live up to the 
standards that they set as exemplary public servants.
    I would also like to thank President Obama and Secretary 
Kerry for their trust and confidence in me. I am 
extraordinarily grateful to the President for nominating me to 
be Ambassador to Norway, and I am honored and humbled that the 
committee is considering my nomination.
    I would like to introduce my wife and partner, both 
professionally and in life, Stacey Mills. I would not be here 
today without her love and support.
    I am also joined by some wonderful members of our family, 
my stepson, Clark Newman, and my niece, Nicole Mills.
    My mother, who is 97, is watching and is very proud that I 
have the honor to appear before you today.
    If confirmed by the Senate, I intend to be a reliable, 
diligent, and energetic representative of the United States to 
Norway. I will undertake those duties recognizing the vital 
importance of our bilateral relationship and the utmost 
seriousness of the work of a U.S. Ambassador. As a key part of 
this responsibility, I will ensure the safety and security of 
U.S. citizens and our Embassy community in Norway.
    Norway holds a unique place in the world, and its 
relationship with the United States is of tremendous value and 
significance. Norway is one of the world's great democracies, 
and its leadership publicly declares that the United States is 
its closest ally.
    If the Senate confirms my nomination, I will devote every 
effort to enhancing this remarkable relationship.
    I know from my own experience that our friendship extends 
beyond the formal relations between sovereign nations. There 
are more than 800,000 proud Norwegian-Americans, as my Senators 
have remarked, in my home State of Minnesota alone. They share 
their culture, history, and pride in their heritage with the 
rest of us. And we Minnesotans are happy to think of ourselves 
as honorary Norwegians. We are proud of the admirable Norwegian 
culture that is an intrinsic and historic part of our State.
    In facing the challenges that confront us as a nation, we 
know that Norway is a dependable and responsible partner. As a 
founding member of NATO, Norway is a long-standing and 
steadfast ally. Norwegian and American military personnel have 
served side by side in operations in Afghanistan, Kosovo, over 
the skies of Libya, and beyond. Norway has repeatedly 
demonstrated its military readiness and commitment to 
interoperability through regular joint exercises with U.S. and 
other allied forces.
    Former Norwegian Prime Minister Jan Stoltenberg is the 
current NATO Secretary General, as you know, a testament to the 
respect of the alliance for Norway's dedication to 
transatlantic security.
    Norway has been fully committed to the U.S.-EU approach to 
support Ukraine, imposing all rounds of sanctions against 
Russia despite the economic burden.
    Norway has also repeatedly called for full implementation 
of the Minsk agreement and is supporting Ukraine's reform 
efforts. Norway is a strong partner in the coalition to counter 
ISIL, contributing military trainers for Iraqi forces, as well 
as millions of dollars in humanitarian support for both Iraq 
and Syria.
    In addition, Norway is at the forefront of our efforts to 
combat violent extremism, hosting a 2-day summit in June to 
further the agenda of the White House summit on countering 
violent extremism held in February.
    Norway and the United States are substantial investors in 
each other's business enterprises. Over 300 U.S. companies have 
a presence in Norway, and Norway is the fifth fastest-growing 
source of foreign direct investment in the United States. If 
confirmed, I intend to expand this relationship and work to 
create even more opportunities for U.S. businesses and American 
workers.
    We share with Norway vital economic and environmental 
interests in the Arctic. We are fortunate that our staunch 
friend Norway works closely with us on the Arctic Council, 
which we now share, sharing our goals for responsible 
stewardship of the region and strengthening international 
cooperation.
    Norway has established itself as a peacemaker and 
peacekeeper, as well as a generous activist in the alleviation 
of humanitarian crises and the promotion of human rights around 
the world. I know from my work over the last 30 years with 
human rights and humanitarian NGOs that in the international 
arena, Norway commands principled, moral high ground. It has 
earned its reputation as an honest broker. If confirmed, I look 
forward to working with Norway in pursuit of these important 
undertakings.
    Throughout my career, I have been a business manager and 
advocate and negotiator. I will bring these skills to bear, if 
the Senate confirms me as Ambassador to the Kingdom of Norway. 
Norway's partnership and alliance with the United States 
requires ambassadorial representation in Oslo that it is 
hardworking, informed, and dedicated to advancing what can only 
be described as an extraordinary international friendship.
    Thank you.
    [The prepared statement of Mr. Heins follows:]

                 Prepared Statement of Samuel D. Heins

    Thank you Chairman Johnson, Senator Shaheen, and members of the 
committee for the opportunity to appear before you today. I would also 
like to thank Senator Klobuchar and Senator Franken for their generous 
remarks. I hope I can live up to the standards they set as exemplary 
public servants.
    I would also like to thank President Obama and Secretary Kerry for 
their trust and confidence in me. I'm extraordinarily grateful to the 
President for nominating me to be Ambassador to Norway, and I'm honored 
and humbled that the committee is considering my nomination.
    I'd like to introduce my wife and partner, both professionally and 
in life, Stacey Mills. I wouldn't be here today without her love and 
support. I'm also joined by some wonderful members of our family, my 
stepson, Clark Newman, and my nieces, Elizabeth Potter and Nicole 
Mills, and nephew, Noah Potter. My mother, who is 97, is watching and 
is very proud that I have the honor to appear before you today.
    If confirmed by the Senate, I intend to be a reliable, diligent, 
and energetic representative of the United States to Norway. I will 
undertake those duties recognizing the vital importance of our 
bilateral relationship and the utmost seriousness of the work of a U.S. 
Ambassador. As a key part of this responsibility, I will ensure the 
safety and security of U.S. citizens and our Embassy communities. 
Norway holds a unique place in the world, and its relationship with the 
United States is of tremendous value and significance. Norway is one of 
the world's great democracies, and its leadership publicly declares 
that the United States is its closest ally. If the Senate confirms my 
nomination, I will devote every effort to enhancing this remarkable 
relationship.
    I know from my own experience that our friendship extends beyond 
the formal relations between sovereign nations. There are more than 
800,000 proud Norwegian-Americans in my home State of Minnesota alone. 
They share their culture, history, and pride in their heritage with the 
rest of us. We Minnesotans are happy to think of ourselves as honorary 
Norwegians. We are proud of the admirable Norwegian culture that is an 
intrinsic and historic part of our State.
    In facing the challenges that confront us as a nation, we know that 
Norway is a dependable and responsible partner. As a founding member of 
NATO, Norway is a long-standing and steadfast ally. Norwegian and 
American military personnel have served side by side in operations in 
Afghanistan, Kosovo, over the skies of Libya, and beyond. Norway has 
repeatedly demonstrated its military readiness and commitment to 
interoperability though regular joint exercises with U.S. and other 
allied forces. Former Norwegian Prime Minister Jens Stoltenberg is the 
current NATO Secretary General, a testament to the respect of the 
alliance for Norway's dedication to transatlantic security.
    Norway has been fully committed to the joint U.S.-EU approach to 
support Ukraine, imposing all rounds of sanctions against Russia 
despite the economic burden. Norway has also repeatedly called for full 
implementation of the Minsk Agreement, and is supporting Ukraine's 
reform efforts.
    Norway is a strong partner in the Coalition to Counter ISIL, 
contributing military trainers for Iraqi Forces, as well as millions of 
dollars in humanitarian support for both Iraq and Syria. In addition, 
Norway is at the forefront of our efforts to combat violent extremism, 
hosting a 2-day summit in June to further the agenda of the White House 
summit on Countering Violent Extremism held in February of this year.
    Norway and the United States are substantial investors in each 
other's business enterprises. Over 300 U.S. companies have a presence 
in Norway, and Norway is the fifth fastest-growing source of foreign 
direct investment in the United States. If confirmed, I intend to 
expand this relationship and work to create even more opportunities for 
U.S. businesses and American workers.
    We share with Norway vital economic and environmental interests in 
the Arctic. We are fortunate that our staunch friend Norway works 
closely with us on the Arctic Council, sharing our goals for 
responsible stewardship of the region and strengthening international 
cooperation.
    Norway has established itself as a peacemaker and peacekeeper, as 
well as a generous activist in the alleviation of humanitarian crises 
and the promotion of human rights around the world. I know from my work 
over the last 30 years with human rights and humanitarian NGOs that in 
the international arena, Norway commands principled, moral high ground. 
It has earned its reputation as an honest broker. If confirmed, I look 
forward to working with Norway in pursuit of these important 
undertakings.
    Throughout my career I have been a business manager, an advocate, 
and a negotiator. I will bring those skills to bear if the Senate 
confirms me as Ambassador to the Kingdom of Norway.
    Norway's partnership and alliance with the United States requires 
ambassadorial representation in Oslo that is hardworking, informed and 
dedicated to advancing what can only be described as an extraordinary 
international friendship.

    Senator Johnson. Thank you, Mr. Heins.
    Our next nominee is Mr. James Melville, a nominee for the 
Ambassador to Estonia. Mr. Melville is a career member of the 
Foreign Service and currently serves as the Deputy Chief of 
Mission of the U.S. Embassy in Berlin.
    Previously, Mr. Melville has served as Executive Director 
of the Bureau of European and Eurasian Affairs and in positions 
in London, Moscow, Paris, and Brussels.
    Mr. Melville.

      STATEMENT OF JAMES DESMOND MELVILLE, JR., NOMINATED 
          TO BE AMBASSADOR TO THE REPUBLIC OF ESTONIA

    Mr. Melville. Chairman Johnson, Senator Shaheen, thank you 
for holding this hearing today. It is a privilege to appear 
before you as the President's nominee to be Ambassador to the 
Republic of Estonia. It is a tremendous honor to be asked to 
serve in this post, and I would like to thank President Obama 
and Secretary Kerry for their confidence in me.
    If confirmed, I look forward to working with you and your 
colleagues in Congress to protect American citizens and further 
U.S. interests in Estonia.
    Mr. Chairman, with me is my wife, Joanna. We celebrated our 
31st anniversary yesterday. I would have loved to have 
introduced you to our sons, Desmond and Daniel, but they were 
unable to make the trip down here today. I am very pleased, 
however, to introduce my rooting section from New Jersey, led 
by my mom, Georgina Melville; my sister-in-law, Ruth Bayus; my 
sister and brother-in-law, Eileen and Frank Karpicki; my 
nephew, Nicolas Karpicki; and my nieces, Kathleen and Francesca 
Karpicki.
    Danny and Desmond were born in Berlin during our first 
assignment, and they grew up in the Foreign Service.
    My late father immigrated to America when he was young, as 
did my mother's parents. They raised me and my six brothers and 
sisters to be very proud of our Irish heritage but to be even 
prouder to be Americans.
    It has been the greatest honor of my life to serve our 
Nation for nearly 30 years, and I am deeply fortunate to have 
had Joanna and our sons by my side. We are all very excited 
about the prospect of an assignment to Estonia, a country we 
last visited in its first year of independence from Soviet 
occupation while assigned to the U.S. Consulate in St. 
Petersburg.
    Estonia is a strong and reliable ally in NATO, a member of 
the E.U. and the Eurozone, and a provider of development 
assistance focused on good governance and democracy.
    This year, we marked the 75th anniversary of the Welles 
Declaration, under which the United States would not recognize 
the incorporation of Estonia, Latvia, and Lithuania into the 
Soviet Union. This declaration provided critical support and 
encouragement for Estonia during their 50 years of occupation 
and remains a powerful symbol today. Our shared values continue 
to underline our robust cooperation bilaterally, regionally, 
and globally.
    If confirmed, I hope to work to reinforce our partnership 
with Estonia during a new period of Russian aggression in the 
region and continue to strengthen the already deep and 
productive relationship we have enjoyed these many years.
    A NATO ally since 2004, Estonia has shown unwavering 
support for our shared objectives around the world. Estonian 
troops served with us in Iraq and Afghanistan, and Estonia 
continues to contribute to NATO's Resolute Support mission. 
Estonia has met the NATO standard of committing 2 percent of 
its GDP to defense spending, serving as a model for other 
allies in making the investments necessary to ensure our common 
security. Estonian soldiers have proven themselves accomplished 
and knowledgeable partners in Iraq, Afghanistan, and around the 
world, nonetheless, our continued support remains crucial in 
helping Estonia respond to growing threats.
    If confirmed, I look forward to working to implement the 
European Reassurance Initiative and continuing efforts to 
facilitate joint training and exercises, and increasing 
interoperability under Operation Atlantic Resolve.
    The birthplace of Skype, Estonia has established itself as 
a world leader in information technology. If confirmed, I will 
continue to work to expand our opportunities for trade and 
commercial relations with this innovative partner. This 
includes working with my Estonian colleagues in support of the 
Transatlantic Trade and Investment Partnership.
    As an expert on cyber issues, Estonia hosts the NATO Cyber 
Centre of Excellence in Tallinn, which the United States joined 
in 2011, and has shared its expertise on e-governance with 
other nations, including Ukraine and other eastern partnership 
countries. If confirmed, I look forward to continuing our 
strong cooperation on cyber issues. Outreach to and promoting 
resilience within all parts of society is an important 
component of an Ambassador's work. If confirmed, I will work 
closely with my team to continue outreach to the Estonian- and 
Russian-speaking public, including youth, as we welcome the 
strengths of a diverse and inclusive society.
    Estonia has played an active role in advancing our shared 
security, economic, and social values. If confirmed, I look 
forward to representing my country in advancing a still deeper 
connection between the United States and Estonia.
    I am grateful for the opportunity to have addressed you 
today and am at your disposal to answer any questions you may 
have.
    Thank you.
    [The prepared statement of Mr. Melville follows:]

              Prepared Statement of James D. Melville, Jr.

    Chairman Johnson, Senator Shaheen, members of the committee, thank 
you for holding this hearing today. It is a privilege to appear before 
you today as the President's nominee to be Ambassador to the Republic 
of Estonia. It is a tremendous honor to be asked to serve in this post, 
and I would like to thank President Obama and Secretary Kerry for their 
confidence in me. If confirmed, I look forward to working with you and 
your colleagues in Congress to protect American citizens and further 
U.S. interests in Estonia.
    Mr. Chairman, with me is my wife Joanna. We celebrated our 31st 
anniversary yesterday. I would have loved to introduce you to our sons, 
Desmond and Daniel, but they were unable to make the trip down here 
today. I am very pleased, however, to introduce my rooting section from 
New Jersey, led by my Mom, Georgina Melville, and including my sister-
in-law, Ruth Bayus, my sister and brother-in-law, Eileen and Frank 
Karpicki, my nephew, Nicholas Karpicki, my nieces, Kathleen and 
Francesca Karpicki, my sister, Laura Hampton, and my niece, Colleen 
Hampton. Danny and Desmond were born in Berlin during our first 
assignment, and they grew up in the Foreign Service. My late father 
immigrated to America when he was young, as did my mother's parents. 
They raised me and my six brothers and sisters to be very proud of our 
Irish heritage, but to be even prouder to be Americans. It has been the 
greatest honor of my life to serve our Nation for nearly 30 years, and 
I am deeply fortunate to have had Joanna and our sons by my side. We 
are all very excited about the prospect of an assignment to Estonia; a 
country we last visited in its first year of independence from Soviet 
occupation while assigned to the U.S. consulate in St. Petersburg.
    Estonia is a strong and reliable ally in NATO, a member of the EU 
and the Eurozone, and a provider of development assistance focused on 
good governance and democracy. This year we mark the 75th anniversary 
of the Welles Declaration under which the United States would not 
recognize the incorporation of Estonia, Latvia, and Lithuania into the 
Soviet Union.This declaration provided critical support and 
encouragement for Estonia during their 50 years of occupation and 
remains a powerful symbol today. Our shared values continue to 
underline our robust cooperation bilaterally, regionally, and globally.
    If confirmed, I hope to work to reinforce our partnership with 
Estonia during a new period of Russian aggression in the region and 
continue to strengthen the already deep and productive relationship we 
have enjoyed these many years.
    A NATO ally since 2004, Estonia has shown unwavering support for 
our shared objectives around the world. Estonian troops served with us 
in Iraq and Afghanistan, and Estonia continues to contribute to NATO's 
Resolute Support Mission (RSM). Estonia has met the NATO standard of 
committing two percent of its GDP to defense spending, serving as a 
model for other allies in making the investments necessary to ensure 
our common security.
    Estonian soldiers have proven themselves accomplished and 
knowledgeable partners in Iraq and Afghanistan and around the world, 
nonetheless our continued support remains crucial in helping Estonia 
respond to growing threats. If confirmed, I look forward to working to 
implement the European Reassurance Initiative (ERI) and continuing 
efforts to facilitate joint training and exercises and increasing 
interoperability under Operation Atlantic Resolve.
    The birthplace of Skype, Estonia has established itself as a world 
leader on information technology. If confirmed, I will continue to work 
to expand opportunities for trade and commercial relations with this 
innovative partner. This includes working with my Estonian colleagues 
in support of TTIP.
    As an expert on cyber issues, Estonia hosts the NATO Cyber Security 
Center of Excellence in Tallinn, which the United States joined in 
2011, and has shared its expertise on e-governance with other nations, 
including Ukraine and other Eastern Partnership countries. If 
confirmed, I look forward to continuing our strong cooperation on cyber 
issues.
    Outreach to, and promoting resilience within, all parts of society 
is an important component of an ambassador's work. If confirmed, I will 
work closely with my team to continue outreach to the Estonian and 
Russian speaking public, including youth, as we welcome the strengths 
of a diverse and inclusive society.
    Estonia has played an active role in advancing our shared security, 
economic, and social values. If confirmed, I look forward to 
representing my country in advancing a still deeper connection between 
the United States and Estonia.
    I am grateful for the opportunity to have addressed you today, and 
am at your disposal to answer any questions you may have. Thank you.

    Senator Johnson. Thank you, Mr. Melville.
    Our next nominee is Ms. Kathleen Doherty, a nominee for 
Ambassador to Cyprus. Ms. Doherty is a senior member of the 
Foreign Service and currently serves as the Deputy Assistant 
Secretary in the Bureau of European and Eurasian Affairs.
    Previously, Ms. Doherty has served at U.S. Embassies in 
London, Moscow, and Rome, working on economic affairs.
    Ms. Doherty.

         STATEMENT OF KATHLEEN ANN DOHERTY, NOMINATED 
           TO BE AMBASSADOR TO THE REPUBLIC OF CYPRUS

    Ms. Doherty. Thank you, Mr. Chairman, Senator Shaheen. I am 
honored to appear before you today to be considered for the 
position of United States Ambassador to Cyprus. I am grateful 
to be nominated by President Obama, and I appreciate Secretary 
Kerry's confidence in me.
    If confirmed, I pledge to work with all of you to advance 
in Cyprus the fundamental U.S. interests in a Europe whole, 
free, prosperous, and at peace.
    I am pleased to be joined today by my partner, Mike Nelson; 
my sister, Erin; and many friends. I am thankful for the 
support of family and friends all these years.
    Today is part of a journey that started when I traveled 
overseas at age 13 to visit Ireland, where my father was born 
and where I first became curious about the world beyond. As the 
daughter of an immigrant, I am proud to represent the United 
States and the hope of promise of this country.
    This is a hopeful time for Cyprus, a country situated at 
the crossroads of Europe, the Middle East, and Africa. With the 
resumption of settlement talks in May and the strong commitment 
of both the Greek Cypriot and the Turkish Cypriot leaders, 
there is a real window of opportunity to forge a just and 
lasting peace.
    If confirmed, I would do all that I could to support 
efforts by courageous and visionary leaders, ordinary people, 
and the United Nations, to reach the promise of a bizonal, 
bicommunal federation. A reunified Cyprus would provide for a 
more prosperous future for all Cypriots.
    Such an example would resonate well beyond the island. It 
would strengthen Greece-Turkey relations. A reunified Cyprus 
would also enhance regional security and boost NATO-EU 
cooperation.
    Senators, I also believe it would serve as an inspiration 
for others who wish to define a new future after a painful 
past.
    The Republic of Cyprus is a valued friend and an important 
strategic partner. The United States cooperates with Cyprus on 
a range of priorities, including counterterrorism, maritime 
security, and law enforcement. Cyprus' participation in the 
counter-ISIL coalition and its efforts to prevent the 
proliferation of weapons of mass destruction demonstrate its 
commitment to international security.
    U.S.-led investment in Cyprus, increasing nearly sevenfold 
over the last 2 years, is an example of our growing economic 
ties. Cyprus' economy is turning the corner earlier than 
projected after the country's acute fiscal crisis in 2012. Its 
economic reform programs will help ensure that this positive 
growth continues.
    At the same time, progress on a settlement could have a 
positive impact on the entire island's economy. Study after 
study has shown a Cyprus settlement would create opportunities 
for greater trade and investment, bringing tangible benefits to 
all Cypriots.
    The discovery of natural gas reserves in Cyprus' offshore 
waters has expanded possibilities for increasing regional 
energy security through diversification of resources, routes, 
and suppliers. We have emphasized our support of the Republic 
of Cyprus' right to develop hydrocarbon resources in its 
exclusive economic zone.
    We believe that resources should be shared equitably 
between both communities within the context of an overall 
settlement. Hydrocarbons have the potential, if managed 
correctly, to serve as an incentive for a Cyprus settlement. If 
confirmed, I would seek to build upon this potential.
    During his visit to Cyprus in May 2014, Vice President 
Biden emphasized that a reunified Cyprus would expand the 
possibilities for strengthening our partnership.
    If confirmed, I will be accredited to one government, the 
Republic of Cyprus. That said, I will support both Greek-
Cypriot and Turkish-Cypriot communities in their efforts to 
pursue reconciliation and reunification.
    If confirmed, I believe my experience will prepare me well 
for the challenges and opportunities ahead. Throughout my 25-
year career, I worked closely with Members of Congress, the 
U.S. military, and nearly all U.S. Government agencies and 
departments.
    While serving in Washington and at posts overseas, I have 
strengthened United States-European relations, promoting trade, 
investment, economic opportunity, and innovation. I have been a 
strong advocate for the diversification of energy supplies and 
for the United States and the EU to work together to address 
energy challenges. I have championed efforts that enhance 
European security working through NATO and the EU And while 
serving as Deputy Assistant Secretary, I worked on the peace 
process in Northern Ireland, which gave hope to long-divided 
communities.
    If confirmed, I will dedicate myself to strengthening the 
bonds between the United States and Cyprus, and working with 
Members of Congress, partners in the U.S. Government and 
elsewhere, and with the talented staff of the Embassy in 
Nicosia to further our goals and support the promise of a 
better future for all Cypriots.
    Mr. Chairman, Senator Shaheen, thank you again for the 
opportunity to be here with you today. I would be pleased to 
answer any questions you may have.
    [The prepared statement of Ms. Doherty follows:]

               Prepared Statement of Kathleen A. Doherty

    Chairman Johnson, Senator Shaheen, members of the committee, I am 
honored to appear before you today to be considered for the position of 
the United States Ambassador to the Republic of Cyprus. I am grateful 
to be nominated by President Obama and appreciate Secretary Kerry's 
confidence in me. If confirmed, I pledge to work with all of you to 
advance in Cyprus the fundamental U.S. interest in a Europe whole, 
free, prosperous, and at peace.
    I'm pleased to be joined today by my partner, Mike Nelson, and my 
brother Bob Doherty, who along with the other members of my family have 
supported me all these years. Today is part of a journey that started 
when I first traveled overseas at 13 to visit Ireland, where my father 
was born, and where I first became curious about the world beyond. As a 
first generation American on my father's side, I am proud to represent 
the United States and the hope and promise of this country.
    This is a hopeful time for Cyprus, a country situated at the 
crossroads of Europe, the Middle East, and Africa. With the resumption 
of settlement talks in May and the strong commitment of both the Greek 
Cypriot and Turkish Cypriot leaders, there is a real window of 
opportunity to forge a just and lasting settlement. If confirmed, I 
would do all that I could to support efforts by courageous and 
visionary leaders, ordinary people, and the United Nations to reach the 
promise of a bizonal, bicommunal federation. A reunified Cyprus would 
provide for a more prosperous future for all Cypriots. Such an example 
would resonate well beyond the island, strengthening Greece-Turkey 
relations and links across the Eastern Mediterranean. It would serve as 
an inspiration for others who wish to define a new future after a 
painful past. A reunified Cyprus would also enhance regional security 
and boost NATO-EU cooperation.
    The Republic of Cyprus is a valued friend and important strategic 
partner. If confirmed, I am committed to boosting our bilateral 
relationship to promote peace, security, and prosperity in the region 
and beyond. The United States cooperates closely with Cyprus on a range 
of priorities including counterterrorism, maritime security, and law 
enforcement. Cyprus' hosting of the Joint OPCW-U.N. Mission to 
dismantle Syria's chemical weapons, participation in the Counter-ISIL 
Coalition, as well as its regional efforts to prevent the proliferation 
of weapons of mass destruction demonstrate its commitment to 
international security.
    U.S.-led investment in Cyprus, increasing nearly sevenfold over the 
last 2 years, is a concrete example of our growing economic ties. 
Cyprus is supportive of our efforts to conclude the U.S.-EU 
Transatlantic Trade and Investment Partnership (TTIP). TTIP can help 
develop the island's growing professional services sector and provide 
new opportunities for entrepreneurship. Cyprus' economy is turning the 
corner, earlier than projected after the country's acute fiscal crisis 
in 2012. As the sacrifices required by fiscal consolidation and 
structural reforms are beginning to bear fruit, Cyprus' economic reform 
programs will help ensure that this positive growth continues. At the 
same time, progress on a settlement could have a positive impact on the 
entire island's economy. Study after study has shown a Cyprus 
settlement would create opportunities for greater trade and investment, 
bringing tangible benefits to all Cypriots. If confirmed, I would draw 
upon my years of experience creating opportunities in the areas of 
entrepreneurship, innovation, and commerce--particularly for women and 
young people--and push this vision forward.
    The recent discovery of natural gas resources in the Eastern 
Mediterranean, including in Cyprus' offshore waters by U.S. company 
Noble Energy in 2011, has expanded possibilities for increasing 
regional energy security through diversification of resources, routes, 
and suppliers. We have emphasized our support of the Republic of 
Cyprus' right to develop hydrocarbon resources in its exclusive 
economic zone. We also believe the resources should be shared equitably 
between both communities within the context of an overall settlement. 
Hydrocarbons have the potential, if managed correctly, to be a catalyst 
for increased cooperation as well as enhanced regional stability, 
security, and prosperity. Energy potential should serve as an incentive 
to a Cyprus settlement. If confirmed, I would seek to build upon this 
potential.
    During his historic visit to Cyprus in May 2014, Vice President 
Biden emphasized that a reunified Cyprus would expand the possibilities 
for strengthening our partnership. If confirmed, I will be accredited 
to one government, the Republic of Cyprus. That said, I will support 
both Greek Cypriot and Turkish Cypriot communities in their efforts to 
pursue reconciliation and reunification.
    If confirmed, I believe my experience will prepare me well for the 
challenges and opportunities ahead. Throughout my 25-year career, I 
have worked closely with Members of Congress, the U.S. military, and 
nearly all U.S. Government agencies and Departments, and know how we 
can work together to support the goal of a whole and prosperous 
Cyprus.While serving in Washington as Deputy Assistant Secretary in our 
Bureau of European and Eurasian Affairs and at posts overseas, I have 
strengthened U.S.-European relations, promoting trade, investment, 
economic opportunity and innovation. I have been a strong advocate for 
the diversification of energy supplies, and for the U.S. and European 
Union to work together to address global and regional energy 
challenges. I have championed efforts that enhanced European security, 
working through NATO and the EU, and while serving as a Deputy 
Assistant Secretary of State, I supported the peace process in Northern 
Ireland, which gave hope to long divided communities.
    If confirmed, I will dedicate myself to strengthening the bonds 
between the United States and Cyprus, and working with Members of 
Congress, partners in the U.S. Government and elsewhere, and with the 
talented staff of the Embassy in Nicosia to further our goals in Cyprus 
and support the promise of a better future for all Cypriots.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to be here with you today. I would be pleased to answer any 
questions you may have.

    Senator Johnson. Thank you, Ms. Doherty.
    Our final nominee is Mr. Thomas Melia.
    Am I pronouncing that correctly, ``Melia''?
    Mr. Melia. We pronounce it ``Melia.'' But you may have it--
--
    Senator Johnson. I am happy to go with your pronunciation. 
I will probably still get it wrong, but it is close.
    A nominee for Assistant Administrator for Europe and 
Eurasia at USAID, Mr. Melia is currently executive director of 
Democracy International and previously served from 2010 to 2015 
as Deputy Assistant Secretary in the Bureau of Democracy, Human 
Rights and Labor at the Department of State.
    Mr. Melia.

    STATEMENT OF THOMAS MELIA, NOMINATED TO BE AN ASSISTANT 
 ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Melia. Thank you, Mr. Chairman, Senator Shaheen, 
Senator Murphy. It is an honor to appear before you today as 
President Obama's nominee to be Assistant Administrator for 
Europe and Eurasia at the U.S. Agency for International 
Development.
    I am grateful for the trust and confidence placed in me by 
President Obama, Acting Administrator Lenhardt, and Secretary 
Kerry at this critical time in the region.
    I am pleased to be joined today by my best friend, my 
spouse, Amy Conroy; our son, Tomas; and my brother, Tim, who is 
standing in for the wider Melia clan, my mother, Margaret; my 
sister, Kay; my brothers, Terry and Pat, who may be watching on 
the video link today.
    It happens that Amy grew up in a USAID family as her 
father, Dennis, pursued a career in the agency and its 
predecessor agencies from the early 1950s to the 1980s, working 
to advance U.S. interests in Asia and sub-Saharan Africa. Since 
then, Amy has built a distinguished career promoting women's 
participation in American politics and in leading some of the 
best-known and most important nonprofit advocacy organizations 
in the United States.
    My son, Tomas, meanwhile, as he prepares to enter the 
seventh grade, is learning the importance of public service, 
too, and investing great energy in developing critical national 
security skills in lacrosse, basketball, and soccer.
    For more than 30 years, I have worked to promote democratic 
governance and fundamental freedoms throughout the world, 
mainly while working for nongovernmental, nonprofit 
organizations, and now at Democracy International, an exciting 
new entrant in the community of democracy support 
organizations.
    I believe the United States can, and should always be, a 
reliable friend of democracy and its advocates worldwide, not 
only because a more democratic world would enhance America's 
prosperity and security, but because democracy is the only 
political framework that can ensure that universal human rights 
are respected and that the voices of the poor and marginalized 
are heard by their leaders.
    As Deputy Assistant Secretary of State in the Bureau for 
Democracy, Human Rights and Labor most of these last 5 years, I 
oversaw the Bureau's work in three regions, including Europe 
and Eurasia.
    I know this region and its people well. I was the U.S. 
chair of several bilateral working groups and led delegations 
to address human rights, civil society, rule of law issues in 
countries across the region--including Armenia, Azerbaijan, 
Belarus, Georgia, Hungary, Moldova, Russia, Turkey, and, of 
course, Ukraine, where I led official U.S. missions more than 
six times in 3 years.
    Ukraine is a central focus of USAID's Bureau for Europe and 
Eurasia, as it is across the administration. The agency plays 
an important role supporting the Government of Ukraine's 
accelerated reform efforts, and I want to acknowledge the many 
members of this committee, in particular, who have led Congress 
in providing vital support to the people of Ukraine.
    In various capacities inside and outside government over 
the years throughout my career, I have seen firsthand the 
effectiveness of development assistance as an important aspect 
of our foreign policy, particularly in the former Communist 
countries of Europe and Eurasia. Yet, even with this success, 
the region's transformation is incomplete, and we find 
ourselves today at a tipping point.
    The threat of political and economic backsliding remains. 
The resurgence of extreme nationalism across the continent 
reminds us of the fragility of the post-war social compact we 
once thought had been secured by creation of the European 
Union. Trafficking in persons continues to be a serious human 
rights challenge in the region. Conspicuous, high-level 
corruption undermines public confidence in the utility of 
democratic institutions and open markets.
    It turns out there is more to be done to secure the 
transition from totalitarian to the Europe we have all 
envisioned--whole, free, and at peace.
    Having begun my professional career working for more than 5 
formative years for Senator Daniel Patrick Moynihan, I 
understand and appreciate the important role that Congress 
plays--and in my view should play--in the development and 
execution of U.S. foreign policy. The Congress is the 
democratic fulcrum that ensures our international policies 
properly project American values and remain focused on core 
national interests. If confirmed to the position the President 
has nominated me for, I would welcome the opportunity to work 
closely with this committee as together we chart the way 
forward to advance USAID's mission: to end extreme poverty and 
promote resilient, democratic societies--while advancing our 
own security and prosperity.
    If confirmed, I look forward to working with you on a 
regular basis. Thank you again for the opportunity to speak to 
you today. I welcome any questions you may have.
    [The prepared statement of Mr. Melia follows:]

                 Prepared Statement of Thomas O. Melia

    Chairman Johnson, Ranking Member Shaheen, members of the committee, 
it is an honor to appear before you today as President Obama's nominee 
to be Assistant Administrator for Europe and Eurasia (E&E) at the U. S. 
Agency for International Development (USAID). I am grateful for the 
trust and confidence placed in me by President Obama, Acting 
Administrator Lenhardt, and Secretary Kerry at this critical time for 
the region.
    I want first to recognize the outstanding work being done by Susan 
Fritz, who has been leading the Bureau as acting Assistant 
Administrator since January. Ms. Fritz has served our country with 
great distinction throughout a 25-year career at USAID and is a true 
expert on the development challenges we confront in the region. I also 
want to acknowledge with appreciation Paige Alexander, the previous 
Assistant Administrator for E&E, and to thank her for advice and 
guidance during this process. I worked closely with Ms. Alexander in my 
previous position at the Department of State and know how effective her 
leadership was in the region and in the U.S. Government's interagency 
deliberations.
    I also want to thank my family, friends, and professional 
colleagues whose support and encouragement have allowed me to pursue 
this opportunity. I am especially pleased to be joined today by my best 
friend, my spouse, Amy Conroy, and our son Tomas. It happens that Amy 
grew up in a USAID family, as her father pursued a career in the Agency 
and its predecessors from the early 1950s to the 1980s, working to 
advance U.S. interests in Asia and sub-Saharan Africa. Her sisters were 
born in Ethiopia and Iran, when the Conroy family was posted to those 
countries. Since then, Amy has built a distinguished career promoting 
women's participation in American politics and in leading some of the 
best-known and most important nonprofit advocacy organizations in the 
U.S. For more than 30 years, she has been making significant 
contributions to strengthen American democracy. Tomas, meanwhile, as he 
prepares to enter the seventh grade, is learning the importance of 
public service at the community, national and international levels.
    For more than 30 years, I have worked to promote democratic 
governance and fundamental freedoms throughout the world, mainly while 
working for nongovernmental, nonprofit organizations, including the 
National Democratic Institute and the bipartisan Freedom House. Since 
leaving government service earlier this year, I am proud to be working 
at Democracy International, an exciting new entrant in the community of 
democracy support organizations. As a university teacher and occasional 
writer of articles and books, I have also had the opportunity to 
discuss with scholars and practitioners how the United States might 
better help those men and women in other countries who share our values 
to build their own democratic societies and institutions. While each 
country's path will be decided by its own citizens--we as outsiders 
will only ever be supporting actors in other nations' national dramas--
I believe that the United States can and should always be a reliable 
friend of democracy and its advocates worldwide. This is why it is so 
important that the U.S. Government's recently released second 
Quadrennial Diplomacy and Development Review (QDDR) highlights, as one 
of the Nation's four top strategic priorities, ``promoting open, 
resilient and democratic societies.'' For this is the only sure path to 
enduring development outcomes for the poorest and least resilient 
societies. It is the only political framework that can ensure that 
universal human rights are respected, and that the voices of the poor 
and the marginalized are heard by their leaders.
    From 2010 to earlier this year, I served as Deputy Assistant 
Secretary of State in the Bureau for Democracy, Human Rights and Labor 
(DRL). In that role, I oversaw the Bureau's work in three regions, 
including Europe and Eurasia. I know this region and its people well. I 
have worked with political leaders, including government officials and 
opposition leaders, human rights activists and community leaders. I 
have coordinated our efforts with our closest allies. I was the U.S. 
chair of several bilateral working groups, and led delegations to 
address human rights, civil society, or rule of law issues in countries 
in this region--including Armenia, Azerbaijan, Belarus, Georgia, 
Hungary, Moldova, Russia, Turkey--and of course Ukraine, where I led 
official U.S. missions more than six times in 3 years.
    Senator Cardin may recall that I led or participated in many U.S 
delegations to meetings of the Organization for Security and 
Cooperation in Europe (OSCE) during those 5 years, including each 
year's Human Dimension Implementation Meeting in Warsaw, where I led 
our interaction with civil society and human rights activists from 
across the OSCE region. I was honored to serve and work closely with 
both Secretaries of State Hillary Clinton and John Kerry in the annual 
ministerial meetings of the OSCE. Moreover, during these past 5 years, 
I was also fortunate to work with impressive colleagues from across the 
U.S. Government, including at the Department of Justice and Department 
of Defense, as well as the National Security Council staff, and most 
frequently with USAID counterparts, so I know the interagency apparatus 
and procedures well.
    Having begun my professional career working for more than 5 years 
for Senator Daniel Patrick Moynihan, I understand and appreciate the 
important role the Congress plays--and in my view should play--in the 
development and execution of U.S. foreign policy. The Congress is the 
democratic fulcrum that ensures our international policies are 
leveraged to properly project American values and remain focused on 
core national interests. If confirmed in this role, I would welcome the 
opportunity to work closely with this committee as together we chart 
the way forward to advance USAID's mission: to end extreme poverty and 
promote resilient, democratic societies--while advancing our own 
security and prosperity.
    USAID's Bureau for Europe and Eurasia was created a quarter century 
ago, pursuant to specific legislative mandates enacted after the fall 
of the Berlin Wall and the dissolution of the Soviet Union, with the 
goals of promoting Euro-Atlantic integration and fostering a Europe 
whole, free, and at peace. I have seen firsthand the effectiveness of 
development assistance as an important aspect of our foreign policy, 
particularly in the formerly Communist countries of Europe and Eurasia. 
For well over two decades, the United States and USAID have played a 
key role in the region, supporting successful transitions from 
assistance to partnership in 10 formerly Communist countries that have 
joined the European Union. Today, we count several of these countries 
as some of the United States strongest and most able allies. The region 
serves as a model for the principles of sustainable development, for 
creating the conditions where international assistance is no longer 
needed.
    However, even with this success, the region's transformation is 
incomplete, and we find ourselves today at a tipping point. In a 
growing number of countries that had appeared to have successfully 
transformed, the threat of political and economic backsliding still 
remains. Multiple political crises and the recent resurgence of extreme 
nationalism in multiple countries across the European Continent remind 
us of the fragility of the post-war social compact we once thought had 
been secured by creation of the European Union. Trafficking in persons 
continues to be a serious human rights challenge in the region. 
Conspicuous high-level corruption undermines public confidence in the 
viability and utility of democratic institutions and open markets. It 
turns out there is more to be done to secure the transition from 
totalitarian rule to the Europe we all have envisioned--whole, free, 
and at peace.
    Development assistance remains a strategic imperative in a region 
facing rising internal and external pressures. Structural instability 
and democratic and economic stagnation are all exacerbated by Russia's 
aggressive actions, reminding us that the United States still has an 
important role to play.
    Ukraine is a central focus of USAID's E&E Bureau, as it is across 
the Obama administration. The agency continues to play an important 
role supporting the Government of Ukraine's accelerated reform efforts 
across key sectors, providing macroeconomic assistance, helping 
strengthen civil society, supporting energy security, and providing 
humanitarian relief to conflict-affected communities in the east. While 
progress is being made, Ukraine must continue to aggressively pursue 
not only enactment of new laws, but also actually implementing real 
reforms. In order to be successful, Ukraine will need continued support 
and technical assistance from the international community, and I want 
to acknowledge the many members of this committee in particular who 
have led the Congress in providing vital support to the people of 
Ukraine.
    I want to emphasize, however, that Russian pressure is not limited 
to Ukraine. At a Senate Appropriations Subcommittee on State and 
Foreign Operations hearing on February 24, 2015, Secretary Kerry, in 
response to a question regarding Russian influence in the region, 
stated, ``Whether it's Serbia, Kosovo, Montenegro, Macedonia, other 
places--they are all in the firing line.'' If confirmed, I will be a 
strong advocate for strong continued USAID engagement in the Balkans, 
as well as in Georgia and Moldova, where increased Russian pressure has 
the potential to destabilize those countries and threaten important 
progress toward implementation of the historic Association Agreements 
and Deep and Comprehensive Free Trade Area agreements with the European 
Union. It is important that the United States continues to support the 
sovereign right of these countries to choose their own futures and help 
them meet the conditions of these agreements. I also want to say--to 
the peoples of Belarus, Armenia, and Azerbaijan, and Russia--that we 
support their aspirations to live in prosperous, democratic countries, 
at peace internally and with their neighbors, and more fully integrated 
into Europe and the modern world.
    This is a pivotal moment for the wider European region, facing its 
most significant challenges--economic, social, political and military--
in decades. The United States and USAID have an important role to play 
in the region and must continue to demonstrate leadership and 
commitment to Europe's success. If confirmed, I look forward to working 
with the Senate Foreign Relations Committee and all of our partners to 
achieve our objectives in the region.
    Thank you again for giving me the opportunity to appear before you 
today. I welcome any questions you might have.

    Senator Johnson. Thank you, Mr. Melia.
    Let me start with the nominees for ambassadorships to the 
different countries with the same question. We will just go 
from left to right. Tell me what is the number one or top two 
or three opportunities in terms of economic cooperation between 
our two countries.
    Ambassador Jones. Thank you, Mr. Chairman.
    As I briefly outlined in my statement, we have a strong 
economic-commercial relationship between the United States and 
Poland, but I believe there is opportunity for significant 
growth.
    Poland's economy has been consistently growing over the 
last years, even during the financial crisis. And it is strong 
across the board, a comprehensive growth. Poland's significant 
domestic market, its location next to significant markets, 
present a lot of opportunities for U.S. exporters and U.S. 
investors.
    Secretary Pritzker led a delegation of the President's 
export council last fall to Poland and identified several 
different areas where there is great promise to expand our 
exports and our investments in both directions. Those include 
areas such as defense, as I mentioned, the defense industry, 
IT, aerospace, areas such as green cities, green technology, 
energy cooperation.
    So I will, if confirmed, work very closely with the 
American business community, the Polish business community, to 
try to expand those opportunities.
    Senator Johnson. Thank you, Ambassador.
    Ambassador Klemm.
    Ambassador Klemm. Thank you, Mr. Chairman, an excellent 
question.
    You are familiar with Romania, as a result of your visit 
there last year. The country has great potential. It is one of 
the fastest growing in the European Union. It has relatively 
low debt, and it is fiscally sound and has an educated 
population. As a result, there is already a substantial 
presence of U.S. investment in the country, particularly in the 
sectors of energy, IT, and manufacturing.
    All that said, I think there is still great potential for 
American firms to increase their presence in Romania and, 
importantly, increase exports to the country to support job 
growth here at home.
    That growth in U.S. presence and, actually, economic 
development in of itself in Romania is hindered I think by two 
major factors. One is corruption. Romania still faces a serious 
problem with corruption. Within the European Union, it is 
ranked among the very bottom of countries facing corruption 
and, of course, the contribution that makes to its business and 
investment environment. And the other one is infrastructure.
    In both cases, Romania is committed to improving its 
environment. It is drawing on European Union resources to help 
build out its infrastructure, particularly in roads and rail 
and energy. And then corruption, as I mentioned in my remarks, 
and as you saw firsthand, Senator, it has put into place some 
very powerful and courageous institutions in law enforcement 
and the judiciary to try to deal with corruption and over time 
has established really both a courageous and remarkable record 
in terms of pursuing corruption at the local, regional, as well 
as national level. Thank you.
    Senator Johnson. Senator Murphy and I, when we were in 
Romania, met an incredibly courageous young woman, Laura 
Kovesi. And as Ambassador, we, certainly, hope that you make 
sure that she remains supported by the Romanian Government.
    Mr. Heins.
    Mr. Heins. Thank you, Senator.
    There are identified a number of really great opportunities 
for American companies in Norway. They include oil and gas, in 
particular technologies for cleaner extraction, more efficient 
extraction, of oil and gas, and technologies that would permit 
the extraction of oil and gas in evermore remote and difficult 
to work in areas.
    LNG transport, carbon capture and technology, other green 
technologies, including wind and solar and hydro; there are 
opportunities in the marine industry for joint partnerships 
with Norway; and in health care, with regard to medical 
devices, medical equipment and pharmaceuticals--these all 
present real opportunities, I believe, for U.S. industry to 
export to Norway.
    Senator Johnson. Mr. Melville.
    Mr. Melville. Thank you, Senator.
    Estonia is a very successful economy and very welcoming to 
American businesses. There are approximately 100 American 
companies who already have a presence in Estonia, which has a 
well-deserved reputation as an innovative, creative place for 
startups. And the best example, of course, I already mentioned. 
That is Skype.
    But Estonia has a very responsible approach to managing 
their economy, as well. They have a balanced budget. They are 
very open to investors from the United States. We only have 
about 2.2 percent of their economy in exports now, and there is 
lots of room for advocacy and growth there, which, if 
confirmed, I look forward to taking advantage of.
    Senator Johnson. I would mention the way they balanced 
their budget was to dramatically reduce spending.
    Ms. Doherty.
    Ms. Doherty. Thank you, Senator.
    As I mentioned in my testimony, U.S. investment has already 
increased sevenfold in the past 2 years in Cyprus, primarily in 
the professional services sector and tourism, but, most 
importantly, in the energy sector. Cyprus is in the process of 
identifying the depth of its natural gas reserves, but the 
potential is quite high. U.S. company Noble has already 
invested a significant amount of money in exploration.
    But, obviously, the most important thing that could happen 
for Cyprus and U.S. business opportunity is reunification of 
the island, which would offer great opportunity for U.S. trade 
and investment and also Cypriot investment in the United 
States.
    I spent most of my career actually doing economic and 
commercial advocacy and diplomacy, and I spent a lot of years 
promoting innovation and entrepreneurship, especially among 
young people and women. So I look forward to doing that, if I 
were to be confirmed.
    Senator Johnson. Can you also tell me a little bit about 
what you know about the banking crisis there in 2012 and 2013, 
kind of the cause and effect, and the aftermath?
    Ms. Doherty. Yes, Senator.
    As you do know, Cyprus went through a very serious economic 
and fiscal crisis in 2012. Cyprus has undertaken several 
economic reforms. Despite very high unemployment and other 
constraints, it actually expects to have modest growth this 
year. So we are reasonably optimistic that Cyprus is moving 
forward in terms of economic opportunity, and its reform 
program is quite serious and ambitious.
    Senator Johnson. Mr. Melia, within Europe and Eurasia, can 
you talk about the top priorities for U.S. assistance through 
USAID?
    Mr. Melia. Yes, Mr. Chairman. Thank you.
    The mix of assistance programs in this region differs 
somewhat from other parts of the world for some obvious 
reasons. In the Europe and Eurasia region, USAID's programs 
revolve around support for democratic transformation, through 
democracy and governance programs; support for economic growth, 
helping promote institutional and structural reform to make 
these countries more attractive to international investment; to 
reform their legal structures, to be more law-abiding and fair 
and transparent; and providing, in some cases, startup 
investments for small- and medium-sized businesses to model the 
kind of investments that the private sector can use to jump 
start business development.
    So economic growth is a big part of it. Energy security is 
the other piece, energy security, economic growth and 
democratic transformation.
    Senator Johnson. Can you just mention the country names 
where the top priorities are, where most of the aid is flowing?
    Mr. Melia. Well, the biggest focus these days, of course, 
is Ukraine. The investment in Ukraine went from about $50 
million, 2 years ago, to $150 million in the current year. That 
reflects the heightened priority that we are all placing on 
bolstering Ukraine at this difficult moment and the action by 
this committee and the Congress to enable us to do that.
    So Ukraine is the biggest focus and that program is built 
around these three priority sectors--democratic transformation, 
economic growth, energy security, which is paramount in 
Ukraine. And there is a modest health program as well in 
Ukraine, which has a large incidence of drug-resistant 
tuberculosis.
    Senator Johnson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Since I think almost everyone has mentioned energy 
security, let me just urge you, as you are looking at the 
potential for energy resources throughout Eastern Europe and in 
the countries that we hope you will be representing the United 
States in, that you also look at energy efficiency. It is an 
area where we have tremendous potential to export. It is the 
cheapest and fastest way to develop energy. And it is a place 
where I think, particularly in some of the countries that you 
are representing, that there has not been much focus. Ukraine 
is one of those, which has been mentioned several times. So I 
would just urge you to think about that.
    Mr. Melia, you talked about support for Ukraine. Georgia 
and Moldova are also countries where USAID still has a robust 
effort. But in most of the countries in Europe, USAID funding 
has declined precipitously.
    So is that a reflection of a lack of need for those 
economic development programs?
    Mr. Melia. Well, thank you, Senator. And coming from the 
great State of New Hampshire, I am sure you are very familiar 
with energy-efficiency programs. That is very much a part of 
the energy programs in Ukraine and in the region. So I want to 
acknowledge that it is an important part.
    No, the declines over the last few years in assistance 
levels for the region do not reflect necessarily a diminishing 
of the need. It has reflected the challenge we all face in 
trying to make limited and sometimes dwindling amounts of money 
available to deal with a growing number of crises in the world.
    In the FY16 budget request, the administration has proposed 
increasing funding levels in almost, I believe, in every 
country that we have an aid program in these days.
    I would be a strong advocate for enlarging those budgets, 
at the same time ensuring that the money is well-targeted and 
well-spent.
    We have not talked about the Balkans, Serbia and its 
neighbors----
    Senator Shaheen. I was about to raise that. So I am glad 
that you did.
    Mr. Melia. They are also in the line of fire from Russia. 
The Russian propaganda and meddling in local politics and the 
pugnacious energy politics are being applied against Serbia and 
its neighbors, as well as against those countries that adjoin 
Russia.
    So I will be an advocate for more robust programs in the 
key countries across the region.
    Senator Shaheen. Thank you. I appreciate you saying that. 
As you point out, economic assistance, development assistance, 
is one of the best ways that we can encourage democratic values 
in many of the countries that we are working in.
    Let me just ask you, if you could, to zero in a little bit 
more on the Balkans. I was just in Bosnia, and one of the 
things we heard there is the economic challenges that they are 
facing. And given the other governance challenges, are there 
other ways in which we can support Bosnia that would be helpful 
as they are trying to address their governance challenges as 
well?
    Mr. Melia. Bosnia and its neighbors are still in the 
process of creating new states. Institutions and habits of 
democratic governance are still very much in their nascent 
stages. So I would hope that we would be able to continue to 
provide the kind of technical advice and information exchanges 
that help them do that.
    At the same time, we can deploy American know-how in other 
fields that are important to them--energy security, how to 
manage grids, how to develop energy efficient approaches to 
industry and housing. There is a lot of information that we can 
bring to help people make better decisions. It does not always 
require a lot of money, but it requires some money to be 
present and to be able to deploy the know-how that Americans 
have developed over the years.
    So I think there is more to be done in the Balkans. I just 
visited Kosovo, Serbia, and Macedonia earlier this year on one 
of my last trips at the State Department. And they generally 
want more American presence. They are finding their way through 
coalition-building and democratic politics, media, and 
transparency. There are a lot of things that are very much in 
progress there that I think we should not walk away from at 
this point. When Europe writ large is at a tipping point, we 
need to consolidate the gains that we helped them achieve 
before we move on to the next crisis.
    Senator Shaheen. Thank you. I could not agree more, and I 
look forward to working with you to address those challenges.
    Ms. Doherty, you talked about the potential in Cyprus to 
come to an agreement that might reunite the country and address 
what has been a frozen conflict for a very long time. We have 
heard that before. So what are the reasons that we should be 
hopeful that this time might be different?
    Ms. Doherty. Thank you, Senator. That is an extremely 
important question, and I would like to express why we think 
the situation is different.
    Primarily, the commitment of the two leaders, the Greek 
Cypriot President and the Turkish Cypriot leader, are 
fundamentally committed to the process of reunification. They 
actually know each other from their childhood. They have worked 
together before. And they have been pursuing these talks since 
May. They have been meeting regularly and the negotiators meet 
almost every single day.
    We want to be supportive of the process as much as 
possible, and if confirmed, I will do what I can to be 
supportive to both communities as they try to undertake a very 
difficult path to reconciliation and reunification.
    Senator Shaheen. Thank you very much.
    Mr. Jones, one of the other places I recently visited was 
Poland. I was there in June for the global security conference 
in Wroclaw. What I heard from the Poles was a great deal of 
concern about Russia and its renewed threat to particularly 
Eastern Europe.
    What more can we do to support Poland in its efforts to be 
a bulwark against further incursions by Putin into Eastern 
Europe?
    Ambassador Jones. Thank you, Senator, for obviously a very 
important question and one that can be addressed in many ways.
    Briefly, Poland obviously has become a significant 
contributor to security in the alliance and in Central and 
Eastern Europe through its military but also through its 
society, its democracy and the activism of its civil society in 
the region, and through its economy that is helping other 
countries nearby grow.
    I think we want to address the full spectrum, the hybrid 
spectrum of possibilities of interference with our partners and 
our allies. And I think we have done an excellent job within 
the NATO alliance and bilaterally at deterring and bolstering 
the security of Poland and our allies. I think there is more we 
can do in the areas of cybersecurity, in the areas of 
countering disinformation, in the areas of energy security, as 
you mentioned, all of which are vulnerabilities to allies and 
partners in the region.
    Thank you.
    Senator Shaheen. Thank you very much. My time has expired.
    Again, thank you all for your willingness to serve.
    Senator Johnson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me congratulate all of the nominees on their 
nominations and extend I think the thanks of all of us for your 
families' willingness to join, because it is a collective 
effort, at the end of the day, so we appreciate their 
willingness to sacrifice on behalf of the Nation as well.
    Mr. Melville, anyone who was born in Jersey City and has 
family from Berlin has got to be an extraordinary public 
servant. So congratulations on your particular nomination.
    As you know, the President Ilves, whom I visited with last 
year, lived and studied in New Jersey. And he can actually turn 
a New Jersey accent pretty quickly, so you will have a lot to 
talk about with them.
    Mr. Melville. If confirmed, Senator, I very much look 
looking forward to working with President Ilves, another Jersey 
boy.
    Senator Menendez. Yes, and it is amazing how he can turn it 
on. He tells me he does not do it very often, and it does not 
necessarily help him there are lot. But anyhow, you will have a 
lot to talk to him about.
    I think what is happening in Estonia, the challenges, the 
concerns they have in Poland, which I was also at last year, 
obviously with the Russian invasion, countries that all have 
legitimate reasons to be concerned about Russia's resurgence 
and its actions, concerns in the case of Estonia about Russian-
speaking populations and what that means to stability in the 
country, particularly with all the propaganda that Russia 
spends an enormous amount of money in those countries, and how 
we counteract that. So I look forward to working with both of 
you in your respective nominations.
    Let me turn to Ms. Doherty. You are going to a country that 
as you and I discussed, I have a lot of interest in, Cyprus. I 
have been following the Cyprus question for the better part of 
my congressional career.
    I think for the first time in decades, Cyprus has a 
historic opportunity to forge a lasting agreement between the 
Greek and Turkish Cypriots. And the efforts of President 
Anastasiades and the Turkish Cypriot leader Akinci have put all 
of the difficult issues on the table, which I think is very 
important.
    However, one of the concerns that I have even in a moment 
in which I think there is an opportunity is that, at the end of 
the day, any potential agreement has to be Cypriot-led and 
Cypriot-agreed to. When we try to impose upon the Cypriots our 
will or the will of the international community, that is a 
challenge. We saw that in the Annan plan, which was rejected by 
the people of Cyprus.
    So I hope we have learned from that lesson and try to be a 
facilitator, but not try to impose our will on the Cypriots, 
because that will not have a lasting effect.
    I think there are some things that are important to 
recognize, and so as you visited with me and I shared with you 
some of my concerns, I come to this with the view that, even 
though we have expectations at this moment, at the core of this 
problem is an invasion of Turkey and an occupation of Northern 
Cyprus. And I would like to hear your views on that, as a 
starting point.
    Ms. Doherty. Thank you, Senator. And thank you for your 
interest in Cyprus all these years. You have a lot of expertise 
on the issue and on the country, and I very much appreciate 
that as well.
    As you mentioned, this needs to be a Cypriot-led process, 
and it is a Cypriot-led process. The commitment of both the 
Turkish Cypriot leader and the Greek Cypriot President, they 
seem very determined to doing and taking the very tough 
questions at hand.
    I think the issues of the past are very painful. They need 
to be recognized. They need to be considered. They need to be 
acknowledged.
    But I think at this moment, as we said, we have a historic 
moment that we need to look at the future and really 
concentrate on what can be done to actually move this process 
through its process of reconciliation and reunification. And if 
I were to be confirmed, I would do a lot of listening to both 
sides. I would be engaged as much as possible, as they asked me 
to be, and try to be supportive of the U.N.-facilitated process 
as well, Senator.
    Senator Menendez. I appreciate our desire to look forward, 
but sometimes unless we reconcile ourselves with the past, it 
is difficult to move forward.
    America had slavery as an original sin, and it was not 
until we came face to face with that reality that it was not 
truly possible for us to liberate ourselves and to move forward 
in a way that really had all American society progress.
    So what I would hate to hear is you as the United States 
Ambassador not acknowledge or say what your predecessor has 
said about the reality is that we have the most militarized 
place in the world in Northern Cyprus with thousands of Turkish 
troops who invaded and occupied a sovereign country, a country 
that is part of the European Union.
    So while you want to focus on the future, can I have an 
assurance that I will not be hearing from you that there was 
never an invasion of Cyprus?
    Ms. Doherty. Senator, the years of intercommunal violence 
were terrible and many lives were lost. I think we need to 
really think about those and recognize it.
    I worked in the peace process in Northern Ireland, and I 
also understand how violence can divide communities.
    I think we need to focus on the future, Senator, and I 
think the issue----
    Senator Menendez. I appreciate that, but you are not giving 
me an answer to my question.
    Ms. Doherty. The issue of foreign troops is one of the core 
elements of the peace process and settlement process. The two 
Cypriot leaders need to find a resolution that is satisfactory 
to both----
    Senator Menendez. So if Turkey, who says in a recent visit 
by the President of Turkey to the occupied section of Cyprus, 
who says that this is time for the agreement to come about--
sounds good--but then at the end insists that Turkish groups 
continue to be in Northern Cyprus even if there is an agreement 
between Turkish and Greek Cypriots that the European Union is 
enough of a safeguard.
    Would we say that we still want to look forward then? Or 
would we acknowledge that agreement between the two parties is 
what should prevail, and that Turkey would have to seek to 
withdraw its troops?
    Ms. Doherty. I think, Senator, we need to focus on what the 
Turkish President has said. He said this is an opportunity not 
to be missed. He said that even just this morning in Cyprus.
    So I think we need to work very closely with Ankara, as 
well as Athens, as well as the two communities on both sides of 
the island, in ensuring that we have a resolution that is 
satisfactory to all parties.
    Senator Menendez. Mr. Chairman, may I have two additional 
minutes?
    Well, okay, I know what the State Department tells you to 
say. That is not satisfactory to me. And I think it does not 
take a lot to acknowledge that if Greek and Turkish Cypriots 
come to an agreement, which says we want the Turkish troops out 
of here and we are willing to accept the European Union as our 
security guarantee, that we should be able to say that the two 
parties who are the people who are most involved in terms of 
their lives and future, that we should be able to honor that. 
And if we cannot say that, that is a problem.
    So I hope that the State Department will allow you in some 
response in writing to give me a better response than what we 
got.
    Let me ask you this, the committee on missing persons in 
Cyprus has been unable to access so-called Turkish military 
zones where the remains of Greek and Turkish Cypriots missing 
persons are likely buried. They have been very slow in allowing 
the process of exhumations to move forward. What is your take 
on this issue, considering the fact that the United States has 
contributed over $500,000 to the committee for the exhumation 
and identification of the remains of 500 Turkish Cypriots and 
1,500 Greek Cypriots?
    Ms. Doherty. We have called repeatedly for expeditious 
access to all burial sites, as have the two Cypriot leaders. 
While the access has been slow, Senator, the Turkish Government 
has provided information on two new military sites, as you have 
seen in the U.N. security report that was just released, which 
is a step forward, a positive trend forward.
    That said, we continue to raise this issue with Ankara, and 
we will continue to press for a greater and more expeditious 
access to all burial sites.
    Senator Menendez. So if you are confirmed as Ambassador, 
you will make that one of your priorities?
    Ms. Doherty. I will, indeed, sir.
    Senator Menendez. Finally, for the purposes of not 
extending the time here, I will submit some questions for the 
record for you and a few others.
    Cyprus is the only European country where the United States 
still maintains an arms embargo. It is on a short list with 
countries that it does not deserve to be, like North Korea and 
Iran--despite being a strategic partner of the United States, 
despite being part of the coalition fighting ISIL, despite 
being one of the only stable democracies in the region, a 
member of the European Union, and someone that is working with 
us on just about every element that we want to.
    Now, an amendment that I authored was passed on the 
national defense authorization bill, which passed here in the 
Senate. Do you have a view as to lifting the outdated arms 
embargo on this European Union country?
    Ms. Doherty. Thank you, Senator.
    Cyprus is an important partner. We are prohibited under the 
Foreign Assistance Act of 1987. There is a statutory 
requirement that prohibits defense sales and transfers. So we 
are obligated to follow that statutory requirement.
    That said, we do have some waiver authority. And we have on 
a case-by-case basis, provided equipment to Cyprus under our 
waiver authority. And we would consider all possibilities 
should the Cypriot Government present us with a list of 
requests. We will consider those within our own authorities.
    Senator Menendez. Well, I will submit, Mr. Chairman. I do 
not want to delay----
    Senator Johnson. You can ask more questions.
    Senator Menendez. That is an invitation I will not resist. 
I am sure Ms. Doherty would appreciate----
    Ms. Doherty. I am from New York, sir.
    Senator Menendez. I understand, yes. Which is a great 
suburb of New Jersey. [Laughter.]
    So we like New Yorkers.
    Look, just a different topic, on Cyprus, obviously, but a 
different topic.
    In the future for both the Greek and Turkish Cypriots is 
the exclusive economic zone, which abuts alongside Israel, in 
terms of the zone. Cyprus and Israelis have been working 
jointly toward being able to explore the fulfillment of that 
exclusive economic zone, which can not only be a tremendous 
opportunity for Cyprus and, if there is reunification, a 
tremendous opportunity for Turkish and Greek Cypriots, but also 
an opportunity to help Europe with its energy needs and keep 
moving away from Russia's dominance in that respect.
    But Turkey came in there and started claiming 
responsibility--not responsibilities, but started claiming that 
it has rights, even though it is nowhere near this exclusive 
economic zone, sent in the Barbaros exploration ship into 
Cypriot waters, followed it with warships.
    Do we believe that the Cypriot Government has the right to 
explore the exclusive economic zone in accordance with 
international law that we would want to have observed in our 
own interests?
    Ms. Doherty. Yes, Senator. We believe the Republic of 
Cyprus has the right to develop its exclusive economic zone.
    Senator Menendez. Okay. And we would hope that that would 
be without the interference of other countries? Is that a fair 
statement?
    Ms. Doherty. The incident mentioned, that you described, 
sir, we did raise our concerns and we feel very strongly that 
the Republic of Cyprus does have its right to develop its own. 
So if I were to be confirmed, I would also speak out for 
anything that raises tension and serves as an impediment to the 
reconciliation process.
    Senator Menendez. One final question, then to Mr. Melville 
and Ambassador Jones. What do you think, in your respective 
roles with Poland and Estonia--and you may have answered this 
before. I tried to listen while I was in my office in a 
meeting, keeping the TV on. So I do not know if I missed it.
    But as it relates to this issue of Russia and its 
bombardment in Eastern Europe and the efforts on both trying 
through its media and other forums to affect communities 
particular more in Estonia but also with the challenge that the 
former President of Poland described to me when I was visiting 
with him, what is the U.S. role in responding to that?
    Mr. Melville. Thank you, Senator, for that important 
question.
    Yes, the Russian-speaking population of Estonia is about a 
quarter, more or less 300,000, concentrated in the northeast 
part of the country. Fortunately, recent polling indicates a 
strong identity on the part of these Russian-speaking Estonians 
with Estonia. They like the fact that they are members of a 
stalwart ally, a strong democracy with progressive, liberal 
economic opportunities. But it is true there is a cultural pull 
of Russia.
    We have been looking for opportunities to reach out to that 
community to counter the Russian propaganda with fact-based, 
truthful reporting.
    So, for example, through the international visitors 
program, we have invited journalists to be trained in the 
United States, and through various other programs, in 
investigative techniques and honest reporting. We are looking 
for opportunities to encourage English-language training in 
this community as well. And the Embassy, as a matter of fact, 
spends a lot of time and resources on public outreach to that 
community.
    As a Russian speaker myself, if confirmed, Senator, I would 
look to spend a lot of time there. And I think there is a lot 
of strength through diversity that I think the United States 
provides a wonderful model of. And that would be an important 
part of the public outreach that I would engage in, were I to 
be confirmed as Ambassador.
    Ambassador Jones. Thank you, Senator.
    Poland is a terrific partner in this effort to counter 
Russian disinformation and propaganda. Some of the things that 
the United States is doing in cooperation with Poland and a 
number of other interested partners include helping to network 
and build capacity among Russian-speaking independent 
journalists in the Russian-speaking areas, such as in Estonia 
and other countries nearby Russia, also helping with building 
capacity in content and building capacity of broadcast 
capability.
    I think there are a couple of different threats coming our 
way in the area of disinformation. One is to this Russian-
speaking community. Another is, frankly, to Europe and even in 
our country where the effort is more about trying to confuse 
debates and undermine solidarity within the alliance and within 
the European Union.
    I think what we are working together with several countries 
on is to try to make clear, sort of unmask this propaganda 
machine, and make clear to our publics, our elites, our 
legislatures, and our government partners how this is done and 
how coordinated it is emanating from Moscow.
    And if confirmed, I will, certainly, take up that issue 
very energetically with the Government of Poland.
    Senator Menendez. Thank you.
    Thank you, Mr. Chairman, for your courtesy. I appreciate 
it.
    Senator Johnson. No, I appreciate it, because that is 
actually a line of questioning I was going to continue on, 
quite honestly.
    So I am hearing that we are pushing back. Do either of you 
two gentlemen think that we are pushing back even close to 
enough?
    Ambassador Jones.
    Ambassador Jones. Thank you, Mr. Chairman.
    I think Russia has invested a significant amount of money 
over a period of many years in creating what appears to be very 
slick and Western-looking media capabilities that are existing 
in many, many countries, including our own, and I think we are 
starting our pushback.
    I think we are off to an important start, collaborating 
with other governments. But we will not be matching the annual 
budget that Russia frankly puts into this effort. So we have to 
do it smarter. We have to rely on, in my view, as I say, 
networking and building capacity among journalists. And I think 
over time, we have the potential to turn this into a strategic 
vulnerability for Russia.
    Senator Johnson. I am concerned when I hear you say we are 
not going to match the budget. Russia is about a $2 trillion a 
year economy. Western Europe combined with the U.S. is over $30 
trillion. We have started but we are not even close to pushing 
back. It is completely inadequate.
    And this is extremely important. They are getting away with 
what they are doing in Ukraine because of their incredibly 
effective propaganda.
    When I was over there with Senator McCain, we sat down with 
Foreign Minister Sikorski. I know he has some ideas. I would 
really encourage you to work with the Foreign Minister and, 
certainly, the Polish people. We have to push back. I think it 
is just absolutely vital.
    As long as I am on Poland here, we held a hearing in my 
other committee, the Homeland Security and Governmental Affairs 
Committee, on the visa waiver program. I think an awful lot of 
people had a perspective that this actually represented a 
security threat to America. I think the testimony was pretty 
clear that if properly handled, if properly structured, if a 
country is fully cooperating and put in place the requirements 
of a visa waiver program, that it actually improves our 
security.
    Can you speak to that, because I know Poland as well as 
other European countries that are no longer on these visa 
waiver systems would like to become part of it? Can you just 
kind of speak to your perspective in terms Poland?
    Ambassador Jones. Thank you, Mr. Chairman. I could not 
agree more with the approach you just outlined.
    The Obama administration is committed to the expansion of 
the visa waiver program through legislation that would allow 
greater flexibility, so that countries such as Poland can be 
considered to join the visa waiver program.
    Poland has a growing and strong economy. So we strongly 
believe that it would benefit our business as well as our 
people-to-people ties. As you indicated, there are a number of 
requirements that Poland has already instituted. Poland is a 
very close cooperator on counterterrorism and law enforcement. 
So those requirements are virtually all met.
    So as I say, we would welcome additional flexibility that 
would allow us to consider Poland.
    Senator Johnson. Okay, good. Obviously, I hope they 
succeed, because it actually does improve our own security, 
particularly in light of what is happening now with terrorism 
around the world and folks going into Europe.
    The first congressional delegation trip I took 2 months 
into my term here was to visit Georgia, Ukraine, Estonia, 
Latvia, and Lithuania. It was very obvious then talking to 
representatives of all five of those nations that Russia had a 
very overt, were not trying to hide it at all, effort to 
destabilize those democracies.
    Again, propaganda is going to be extremely important. What 
other measures can we take? I will start with you, Ambassador 
Klemm.
    Ambassador Klemm. Thank you, Senator.
    In the case of Romania, you do not have the presence of a 
population with strong Russian ties. In fact, the relationship 
between Russia and Romania, historically, has often been 
fraught. So the inclination of the population in Romania to be 
attracted to Russian propaganda starts at a very low level.
    The affection, according to opinion polls, among Romanians 
for the United States, for example, is very, very high, and for 
Russia actually remarkably low.
    That said, Romanians are very concerned about Russia and 
Russian aggression and the impact that has had on regional 
security. They share a very long border with Ukraine. And right 
over the horizon across the Black Sea, is Russia itself.
    So the steps that they have taken are working with us and 
with the NATO alliance to ensure that the alliance and the 
bilateral security posture is strong and able to resist Russian 
aggression.
    Senator Johnson. Talk about the other ways that Russia 
tries to destabilize. Obviously, they utilize their oil and gas 
resources. Corruption within these systems is endemic and a 
legacy of the Soviet system.
    Just describe a little bit about that in terms of what the 
pushback would be and the other ways that Russia tries to 
destabilize other than just propaganda.
    Ambassador Klemm. Yes, sir. You have raised two important 
areas.
    One is in energy. Here, too, Romania is fortunate that it 
is somewhat isolated from those pressures in that it is still a 
net exporter of energy. It is very, very slight. Their oil and 
gas reserves are declining. But at least today, they have not 
been vulnerable to Russian pressure on energy. That said, all 
of their neighbors are. All of their neighbors are very much 
reliant on Gazprom sources, particularly natural gas.
    What we have been encouraging Romania to do is to invest in 
its energy infrastructure, which is antiquated, so that it can 
be part of a European-wide solution to improve diversification 
of energy resources.
    Senator Johnson. Mr. Melville, you can feel free to answer 
those two questions, but I also want you to speak to the 
difference in perspective that I hear as I meet with 
representatives from Eastern Europe versus representatives of 
Western Europe, in terms of the imperative of pushing back or 
basically how we should push back on Russian aggression. Can 
you speak to that issue?
    Mr. Melville. Yes, Senator.
    Estonia, as you know, has been one of our most stalwart 
allies in terms of responding to the recent Russian aggression. 
Within the European Union, they have advocated the imposition 
of sanctions, despite the fact of having that border with 
Russia and close trade ties. It would have economic 
consequences, but Russia's conduct is so objectionable that 
they are willing to take the leadership role in standing up to 
that aggression.
    So the Estonian Government has been very clear that until 
Russia implements all of the provisions of the Minsk agreement 
and withdraws from their illegal annexation of Crimea, the 
sanctions should stay in place.
    So the policy of the Estonian Government and the United 
States Government in response to Russian aggression is 
indistinguishable.
    Senator Johnson. Although, do the Eastern European 
countries not want us to have a far more robust response? I 
mean, they would like to see us provide lethal defensive 
weaponry, for example. I think the Eastern European countries 
would like to see that. Western European countries would not or 
are certainly more cautious about it.
    Is that an accurate statement?
    Mr. Melville. I would point to Estonia's role as a NATO 
ally. They provide security to the alliance. They have stepped 
up markedly their contributions toward host nation support for 
the presence that has been increased since the Wales summit 
last year.
    We have a persistent and continuing presence of American 
troops now in Estonia. The Estonians are spending 40 million 
over the next 5 years to beef up the host nation support that 
they are providing for the infrastructure to support those 
troops. They are taking great measures to improve their border 
security. And, of course, their borders are also NATO borders. 
That is another contribution to our collective security.
    And as the President said when he was in Tallinn last 
September, the defense of Tallinn, Riga, and Vilnius is the 
same as the defense of Berlin, Paris, and London.
    So I think Estonia's role in the alliance and leadership in 
standing up to Russia and the increased aggression has been 
admirable.
    Senator Johnson. Ambassador Jones, can you speak to that 
basic comment about the different perspectives, Eastern Europe 
versus Western Europe? And do you really believe that Poland is 
satisfied with America's response to this? Do you think they 
prefer seeing a little bit more robust response to the 
situation in Ukraine, for example?
    Ambassador Jones. Thank you, Mr. Chairman.
    I think that since the summit in Wales, the last NATO 
summit, the response from NATO and from the United States has 
grown much more visible and much more tangible to countries 
such as Poland.
    Senator Johnson. Describe that a little bit for us.
    Ambassador Jones. As Secretary Carter just announced last 
month, we will be prepositioning an armored brigade worth of 
equipment and materiel in several countries of Central and 
Eastern Europe for use in exercises, for use in training. We 
will also be, using the European reassurance initiative 
funding, upgrading the infrastructure in Poland, particularly 
at two bases, an aviation base and an army base. So we will be 
able to more effectively train together on this continuous, 
persistent basis with U.S. forces and forces from--every member 
of the alliance that contributes to this effort.
    I think as we have seen, we have had an aviation detachment 
in Poland for some years now. We increased the numbers within 
days of aircraft to that detachment, within days of Russia's 
land grab in Crimea.
    So I think the people of these countries are seeing that 
response. Now I will not say that there are not differences 
about how we should take it forward. As I indicated in response 
to Senator Shaheen's question, I think that that conversation 
has to be a wide-ranging one that includes all of the hybrid 
war threats and not only military equipment.
    Senator Johnson. Is it your sense that the Government of 
Poland is satisfied with our response? Is there going to be 
mounting pressure to do more?
    Ambassador Jones. I think the government is satisfied with 
our response to date. But obviously the threat is evolving, and 
our response to it continues to grow. So as that goes on, I 
look forward, if confirmed, to participate in that 
conversation.
    Senator Johnson. Mr. Melia, you mentioned human 
trafficking. Can you just make a few comments on that?
    Mr. Melia. Thanks for the question, Mr. Chairman.
    It remains one of the scourges of the region, human 
trafficking and forced labor, sex trafficking. It is a 
widespread problem. Some of the governments are beginning to 
pay more attention to it and take our exhortations more 
seriously.
    USAID has several programs in five countries in the region, 
specifically working either with government agencies to 
increase the ability of the justice sector to address this as a 
criminal matter and prosecute offenders, and also with civil 
society to increase social service provisions to victims of 
trafficking.
    Senator Johnson. Can you talk about where the real problem 
regions are?
    Mr. Melia. I confess I do not have the numbers at the tip 
of my tongue. Ukraine is the biggest country with the largest 
population. It is centrally located. It is a big problem there. 
There are other countries that are both sources and transit 
points for trafficking. A number of these countries have large 
portions of their laborers working in Russia, where they are 
often subject to atrocious working conditions.
    So there are a number of countries that have different 
aspects of this problem. The programs that the U.S. Government 
has been supporting address both the government efforts in 
those cases where we have willing partners but also then 
supporting social service and advocacy organizations in a 
number of the countries to press their governments to be more 
active on this.
    Senator Johnson. Okay, thank you.
    Again, I just want to wrap up and thank all of the nominees 
for your willingness to serve this Nation.
    As Senator Menendez mentioned, I also want to thank your 
families. This is a full commitment on the part of yourself and 
your families. Thank you very much.
    I, certainly, wish you the best in what I am sure will be 
your appointments to the posts.
    So with that, the record will remain open for questions 
until noon on Monday, July 27.
    This hearing is adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of James Desmond Melville, Jr., Nominated to be Ambassador to 
  the Republic of Estonia, to Questions from Members of the Committee

               ambassador-designate melville's responses 
                   to questions from senator menendez
    Question. The OIG gave our Embassy in Tallinn a ``D'' grade last 
month, citing serious concerns about maintenance and security issues, 
finding that it does not meet--and cannot be retrofitted to meet--even 
the most basic security standards. Despite this, the Embassy was taken 
off the ``Top 80'' OBO Capital Security Construction Program.

  <diamond> Please explain why that is the case. If confirmed, how will 
        you make securing our Embassy in Tallinn a priority of the U.S. 
        Government?

    Answer. If confirmed, keeping personnel safe and secure will be one 
of my highest priorities. Based on its security risk rating relative to 
other posts, Tallinn did not score high enough on the Department's 
September 2013 Risk Matrix to be placed on the Department's Top 80 
List. Hence it is not scheduled for a New Embassy Compound (NEC) on the 
current Capital Security Construction Program (CSCP) schedule. The 
Bureau of Diplomatic Security is currently conducting its annual update 
to its Risk Matrix, which will be the basis for a revised Top 80 List 
and CSCP schedule. The Department does, however, have projects underway 
and plans to improve Embassy Tallinn's physical and security 
infrastructure.
    Understanding that the Department has a prioritization process, OBO 
continues to improve the security and physical infrastructure of 
Embassy Tallinn to the extent possible. If confirmed, I will work with 
my colleagues in the Department of State to keep U.S. personnel serving 
in Tallinn safe and secure.

                               __________

 Responses of Kathleen Ann Doherty, Nominated to be Ambassador to the 
     Republic of Cyprus, to Questions from Members of the Committee

               ambassador-designate doherty's responses 
                   to questions from senator menendez
    Question. Is the Cyprus problem, at its core, one of invasion and 
occupation?

    Answer. The Cyprus problem is rooted in a complicated history, 
which has resulted in the presence of U.N. peacekeeping forces; the 
division of the island, and the presence of Turkish troops in the 
north. Outstanding issues related to these events, including properties 
and the presence of foreign troops, must be addressed in the context of 
the settlement process. We remain focused on supporting efforts to 
achieve a just and lasting settlement. The U.S. Government has 
consistently sought to use language to describe these events that would 
enable us to play an effective role in support of that process. Like 
you, we believe that Cyprus is poised for tremendous economic growth 
and opportunity, and we look forward to working together to unlock the 
island's great potential.

    Question. Do you support lifting the arms embargo on Cyprus?

    Answer. I believe we should have normal trade and security 
relations with all of our European Union partners. The United States is 
actively supporting efforts to achieve a just and comprehensive 
settlement, which would obviate the rationale and statutory 
requirements for special procedures for arms exports to Cyprus. Until 
then, we will continue to license, on a case-by-case basis, exports to 
Cyprus of defense articles in accordance with the existing statutory 
framework.

    Question. What will the U.S. position be if Turkey isn't willing to 
honor an agreement between Greek Cypriots and Turkish Cypriots to have 
Turkish troops leave? Will the United States pressure Turkey to honor 
that agreement?

    Answer. The United States would support a settlement that is agreed 
to by both Greek Cypriots and Turkish Cypriots. We believe Cypriot 
leadership of the settlement process is critical to its success. Thus, 
we would actively urge Turkey, and all stakeholders, to respect and 
support a solution welcomed by both sides, including one in which the 
sides agreed to address the withdrawal of troops from the island.

                               __________

 Responses of Thomas O. Melia, Nominated to be Assistant Administrator 
  of the U.S. Agency for International Development, to Questions from 
                        Members of the Committee

          assistant administrator-designate melia's responses 
                   to questions from senator menendez
    Question. Europe and Eurasia Bureau.--With the rise of a 
belligerent Russia, the E&E Bureau has taken on new prominence, yet the 
E&E Bureau offices at USAID are offsite. This sends a bad message. If 
you are confirmed, will you commit to working to move this now much 
more important bureau to offices within the USAID headquarters 
building?

    Answer. If confirmed, I will work with agency officials to ensure 
that the E&E bureau's space needs are adequately addressed consistent 
with the challenges of finding appropriate space for all the agency's 
personnel.
          assistant administrator-designate melia's responses 
                    to questions from senator perdue
    Question. Please describe your top three priorities for your role, 
if confirmed.

    Answer. As I mentioned in my testimony, the Europe and Eurasia 
region faces heightened political, economic, and energy challenges at 
present. If confirmed, I will bring the Europe & Eurasia (E&E) Bureau's 
considerable expertise to bear as the United States elevates its 
support for Ukraine, Moldova, and Georgia to counter Russian aggression 
and continue to advance a Europe whole, free, and at peace.
    I will continue to prioritize the E&E Bureau's work across the 
region on Democracy, Human Rights and Governance, Economic Growth, and 
Energy Security. All three of these areas are mutually reinforcing and 
are critical to the short- and longer-term development of countries 
across the region, helping to make them more stable and resilient to 
external pressure.
    If confirmed, I will also continue to advance USAID's new model of 
development by leveraging partnerships with the private sector, 
universities, and civil society; promoting science, technology, and 
innovation; and focusing on sustainable results through rigorous 
monitoring and evaluation of our work. In addition, if confirmed, I 
will seek closer partnership with like-minded partners, including 
support for countries in the region seeking further Euro-Atlantic 
integration.

    Question. If confirmed, what could Congress do to help USAID Europe 
and Eurasia better meet your goals and mission?

    Answer. Congress has long played a critical role in helping to 
advance the U.S. objective of a Europe whole, free, and at peace--and 
particularly during the crisis of the past 2 years as Russia's 
aggressive behavior has obliged us to reinvigorate our efforts to 
assist the countries transitioning from communism.
    As I stated in my testimony, having worked for more than 5 years 
for Senator Daniel Patrick Moynihan, I understand and appreciate the 
important role that Congress plays in the development and execution of 
U.S. foreign policy. The Congress is the democratic fulcrum that 
ensures our international policies are leveraged to properly project 
American values and remain focused on core national interests. Congress 
has long played a critical role in helping to advance the U.S. 
objective of a Europe whole, free, and at peace. If confirmed, it will 
be a priority for me to work closely with members this committee and 
with others in Congress to address the challenges we face in Europe and 
Eurasia.

    Question. The Foreign Relations Committee is working to draft 
legislation to help tackle corruption in Ukraine and assist in their 
economic recovery. What recommendations would you have for this 
legislation, pertaining to USAID efforts?

    Answer. As I noted in my testimony, I am grateful for the strong 
bipartisan support that the Congress has shown Ukraine and for the 
consistently strong position regarding the need for the Ukrainian 
Government to take concrete measures to address corruption. If 
confirmed, I look forward to working closely with the committee and 
others in Congress to identify additional tools and resources to 
support the Government of Ukraine's efforts to address endemic 
corruption.
    It is important to recognize the whole-of-government approach 
required to tackle corruption. USAID, along with colleagues across the 
U.S. Government, is working closely with the Ukrainian Government, the 
Verkhovna Rada and Ukrainian civil society to address the long-standing 
challenge of combating corruption in Ukraine. The impact of corruption 
on Ukraine's economy over the past two decades has been far reaching 
and has left Ukraine with a weakened economy, preventing sustainable 
growth and prosperity for the Ukrainian people.
    USAID's efforts are closely linked to State Department and Justice 
Department efforts to support the Prosecutor General's Office (PGO) and 
National Anti-Corruption Bureau of Ukraine (NABU) to ensure the 
Government of Ukraine prosecutes corruption, as a real deterrent to 
corrupt practices. USAID also continues to support civil society actors 
as they hold the Government of Ukraine accountable and advocate for 
reforms.
    It is also worth noting that the new Ukrainian Government has taken 
steps to put in place a strategy and laws to fight corruption, 
including setting up a new independent National Anti-Corruption Bureau, 
ensuring that politicians and government officials disclose their 
assets and recently standing up new patrol police in Kiev. To support 
this effort, since the Maidan, the U.S. Government has provided $38 
million in assistance including: technical assistance; support to 
establish new agencies; and support for civil society and media 
engagement on passage, enactment, and implementation of anticorruption 
measures and key reforms.

    Question. What progress has Ukraine made under President Poroshenko 
on fighting corruption? How is USAID helping with this effort?

    Answer. Corruption is a central challenge for Ukraine, and it must 
be addressed in order for Ukraine's reforms and progress to be 
sustainable. Eliminating opportunities for corruption is an overarching 
and cross-cutting focus of all of USAID's programming in Ukraine from 
agriculture, to energy, to health. For example, USAID works with 
Ukraine's judiciary to promote greater transparency and accountability 
of judicial institutions and reduce opportunities for corruption. USAID 
supports the development and implementation of merit-based judicial 
selection and standardized judicial discipline procedures and 
monitoring by civil society organizations of judicial selection and 
discipline processes. USAID also works with Ukraine's Parliament to 
advance an anticorruption framework and legislation, and to increase 
understanding of the national budget process for both parliamentarians 
and the public.
    USAID's support to civil society fosters citizen activism and 
participation in policymaking, and helps civil society organizations 
monitor the government, which directly ties into anticorruption efforts 
by enhancing government accountability. I understand that USAID has 
promoted reforms through a broad coalition of civic activists and 
experts, who have played a significant role in driving many of the 
government's major anticorruption achievements to date. These 
achievements include the creation of a national anticorruption 
strategy, reform of the public procurement system, the creation of a 
National Anti-Corruption Bureau and National Agency for the Prevention 
of Corruption, strengthened antimoney laundering regulations, official 
asset disclosure laws, and partial judicial reform, including reform of 
the Prosecutor General's office. USAID also works to improve the 
quality of local media and investigative journalism to promote 
government accountability and enhance the transparency of public 
activities.
    The Group of States against Corruption (GRECO), the Council of 
Europe's corruption watchdog, said Ukraine had fulfilled 20 of 25 
recommendations the group made, marking considerable progress over the 
past year. However, full implementation of these anticorruption reforms 
will be critical to Ukraine's long-term success.

    Question. What conditionality would you recommend to ensure that 
Ukraine's anticorruption efforts are successful?

    Answer. It is my understanding that the United States and 
international partners are working closely with the Ukrainian 
Government and civil society to incentivize Ukraine's efforts to 
address corruption. A key element is conditionality on U.S. and 
international financing (macroeconomic support) to Ukraine. Major 
structural reforms required for IMF, U.S., and other international 
support include: governance reforms, including anticorruption and 
judicial measures, deregulation and tax administration reforms, and 
reforms of state-owned enterprises to improve corporate governance and 
reduce fiscal risks. Broader energy sector reforms, including 
Naftogaz's restructuring, are intended to increase energy efficiency 
and foster energy independence. The loan guarantees signed by the 
United States and Ukraine also included conditionality focused on two 
new Ukrainian anticorruption agencies, the establishment of the 
National Agency on Prevention of Corruption (NAPC) and ensuring that 
the Ukraine's National Anti-Corruption Bureau (NAB) has the necessary 
startup resources to begin investigations and operations to combat 
corruption. To fulfill loan guarantee conditionally Ukraine also passed 
a new State Procurement Law to strengthen governance and checks and 
balances, including by reducing exemptions from competitive processes.

    Question. How long do you think that the United States and EU will 
need to commit to ensure Ukraine develops the proper rule of law and 
sufficient economic growth?

    Answer. The United States is strongly committed to support 
Ukraine's short, medium, and long term reform efforts in the area of 
rule of law. The United States partners with the European Union and 
other international donors to work collaboratively in support of these 
reforms. Over the past year, the Government of Ukraine (GOU) has 
achieved some progress in this area--such as instituting merit-based 
tests for judges. However, there is still significant work to be done 
to reform the judiciary and establish a credible rule of law in 
Ukraine. Both the U.S., EU, and international community understand that 
reforming the rule of law in Ukraine is a long-term process given the 
deteriorating effects of more than 20 years of entrenched corruption in 
the rule of law sector and of longer term legacies from the Soviet era 
that continue to distort the justice system in Ukraine.
    USAID is well-positioned to support the GOU in developing the rule 
of law in Ukraine, and has provided key technical support in informing 
the GOU about the lustration efforts and models that were developed in 
Eastern Europe after the 
fall of communism in the early 1990s. For example, USAID rule of law 
efforts established objective reappointment criteria that are being 
used to vet judges. The Agency also works with civil society 
organizations and media professionals to engage various audiences 
outside of the judiciary and justice sector to build demand for the 
rule of law in Ukrainian society.
    The United States is similarly engaged, taking short, medium, and 
longer term steps to strengthen Ukraine's economy. Ukraine has suffered 
from decades of economic mismanagement and corruption and its economy 
has been severely impacted by the eurozone crisis. More recently, 
Russian aggression, including the use of energy, trade, and finance as 
weapons, has led to further economic contraction. Given these 
challenges, USAID, as part of the broader U.S. Government effort, is 
committed to working with the GOU, and partners like the EU, to take 
steps to strengthen the Ukrainian economy today and into the future.

    Question. What safeguards are in place to ensure that U.S. foreign 
assistance to Ukraine is not diverted into the pockets of corrupt 
officials? Do you believe more could be done on this front?

    Answer. My understanding is that the majority of U.S. assistance to 
Ukraine is given in the form of technical, or advisory, assistance 
rather than direct assistance to the Government of Ukraine. I have been 
assured that when assistance is, in fact, provided to the GOU, it is 
accompanied by rigorous oversight measures on the part of the USAID 
mission, including funding for independent civil society watchdogs to 
ensure greater accountability and transparency. If confirmed as 
Assistant Administrator, I will place a premium on safeguarding all 
taxpayer investments in the region through robust oversight, including 
strong fiduciary controls, and rigorous monitoring and evaluation.

    Question. What USAID programs can be used to help in President 
Poroshenko's ``de-oligarchization'' effort?

    Answer. Improvements to economic governance are the key to curbing 
the influence of oligarchs in the economy. This includes removing 
barriers to business startups; increasing transparency and uniform 
enforcement of laws and regulations that govern the business sector; 
and adopting and enforcing strong antimonopoly, competition policy, and 
antitrust legislation. Changes to the legal and regulatory regime are 
important but the creation and strengthening of the institutions that 
implement and enforce the rules is a more difficult task that requires 
changing the attitudes and behavior of underpaid and poorly trained 
civil servants at all levels.
    I understand that USAID has received a request from the Government 
of Ukraine (GOU) to provide technical assistance in privatizing state-
owned companies, and is exploring ways to support this request. USAID 
personnel have deep expertise in this area and could provide technical 
assistance working with the GOU to ensure that tender documents reflect 
accurate valuation and that competitions are free and fair. Other 
municipal entities in Ukraine have requested USAID assistance in ``de-
oligarchizing'' unfair concession agreements so that contracts provide 
value to citizens, rather than funnel money uniquely to oligarchs.

    Question. What effect, if any, have U.S. Sanctions against Russia 
had on Ukraine? What could be done to mitigate negative effects?

    Answer. As I understand the situation, an important part of the 
U.S. assistance program is aimed at helping Ukraine reorient its trade 
and become less reliant on the Russian market and therefore less 
vulnerable to Russia's abrupt and punitive cutoffs of trade with 
Ukraine, a tactic Russia has frequently used to pressure Ukraine before 
and since the imposition of international sanctions against Russia for 
its aggression against its neighbor. This includes not only the 
considerable work with European nations to provide reverse flow of 
natural gas to assist Ukraine during the winter seasons, but also 
assistance to help Ukrainian firms meet Western product standards and 
improve their productivity and competitiveness; building business 
linkages and relationship in new markets; helping the government 
develop and implement a sound export promotion strategy; improving 
trade policy, including better capacity to utilize understanding of WTO 
rules and procedures; and enhancing trade facilitation to reduce the 
time and cost of getting goods across borders.

    Question. What efforts, specifically, is USAID taking spark or 
support FDI by the private sector both from the EU and other developed 
nations? What industries or economic sectors do you see as the best 
potentialities for these efforts?

    Answer. The most important step that any country in this region can 
take to attract foreign direct investment (FDI) is to make meaningful 
and visible improvements in the business enabling environment. 
Potential investors need to know that the host country government truly 
welcomes investors and protects their rights. A significant focus of 
the U.S. assistance program in the Europe and Eurasia region is aimed 
at improving economic governance. While there are significant 
differences between countries, the most promising sectors in the region 
include agriculture and agro-processing, energy, information 
technology, light manufacturing, and tourism.
    For example, in Ukraine, the sectors with the greatest potential 
for FDI are agriculture production and processing, energy, information 
technology, health, and transportation infrastructure roads, highways, 
rail, ports, and commodity storage. With a focus on small- and medium-
sized enterprises in the agricultural sector, I understand that USAID 
supports partnerships in developing Ukraine's agriculture sector to 
spur economic growth that increases competitiveness, productivity, 
employment, and incomes. USAID's goal is to work with private sector 
partners to promote agricultural development by leveraging the 
expertise of commercial partnerships to benefit small- and medium-sized 
enterprises in productive and profitable ways.

    Question. How is/does USAID (intend to) work with the EU, the IMF, 
and DOS to insure that USAID funds are not allotted in a duplicative 
manner? To what extent does USAID work in conjunction with the EU, the 
IMF, and DOS to prevent duplication of efforts and funds?

    Answer. USAID participates in broad donor coordination, including 
the EU, IMF, multilateral organizations, and bilateral donors in the 
field across Europe and Eurasia. This is done regularly on a sector-by-
sector basis to ensure complementarity and effective use of resources. 
For example, with respect to coordination with the Department of State 
and the broader interagency, coordination on assistance and funds in 
Ukraine is done in Washington through the State Department's Assistance 
Coordinator for Europe and Eurasia (State/EUR/ACE) and in Kiev through 
the U.S. Embassy's special coordinator for assistance, retired 
ambassador Clifford Bond. USAID's guidance for developing Country 
Development Cooperation Strategies (CDCS) and project design documents 
includes mandatory sections on donor cooperation to promote 
collaboration and guard against duplication.

    Question. The Department of State's 2014 Trafficking in Persons 
report cites Ukraine and other E&E countries in the Tier 2 and Watch 
List categories, meaning they have made commitments to pursue 
significant efforts to reduce trafficking. What USAID programs are 
helping to combat human trafficking and verify these efforts? In your 
opinion, what more could be done by USAID to address this problem?
    USAID has committed to playing a vital role in international 
efforts to counter all forms of human trafficking. Through the adoption 
of its code of conduct in compliance with Executive Order 13627, USAID 
has pledged to incorporate a standard trafficking in persons clause 
into all of its acquisition and assistance instruments.
    My understanding is that missions are expected to support the 
implementation of the Countering Trafficking in Persons (C-TIP) Code of 
Conduct and to identify opportunities to strengthen anti-TIP efforts in 
their respective missions. Especially in Tier 2 Watch List and Tier 3 
countries, missions are encouraged to develop anti-TIP strategies 
across all technical areas and integrate anti-TIP components into 
ongoing programming. To support these efforts, the Europe and Eurasia 
Bureau has developed a Toolkit for Integrating C-TIP into Cross-
Sectoral Programming in Europe and Eurasia.
    At the regional level, USAID has projects in five countries: 
Azerbaijan, Belarus, Bosnia and Herzegovina, Moldova, and Ukraine:

    In Azerbaijan, USAID provides assistance victims of human 
trafficking and forced labor, through the provision of technical and 
financial assistance to NGO-run shelters for female, male, and child 
victims of human trafficking and forced labor.
    In Belarus, USAID works to strengthen government agencies and civil 
society organizations to counter TIP. The project has two objectives: 
(1) containing TIP through prevention and protection activities; (2) 
and capacity-building for domestic stakeholders. The project is also 
supporting civil society organizations to strengthen their role in 
countertrafficking efforts.
    In Bosnia and Herzegovina, USAID supports the Ministry of Security 
and the Department for Combating Trafficking in Human Beings to carry 
out their strategy and action plan. The goal of the assistance is to 
strengthen the capacities of C-TIP institutions and organizations to 
adopt and implement more effective policies, laws, and regulations to 
provide better protection and assistance to the TIP victims. USAID's 
support will help Bosnia and Herzegovina implement 18 out of 33 
strategic goals of the strategy.
    In Moldova, USAID addresses trafficking issues by working to 
strengthen and improve the capacity of justice sector institutions to 
respond to the needs of victims in a more transparent and accountable 
manner. USAID support has improved the knowledge of judges and 
prosecutors to investigate and classify trafficking as well as assisted 
the National Institute of Justice to develop a C-TIP curriculum for in-
service training of judges and prosecutors.
    In Ukraine, USAID and the Department of State work to strengthen 
the Government of Ukraine's capacity to undertake countertrafficking 
work, including prosecution and prevention and reintegration assistance 
to victims of trafficking under the institutionalized framework of the 
National Referral Mechanism (NRM). Additionally, U.S. Government 
programs work to build local capacity and support for targeted 
prevention programs and strengthen the capacities of law enforcement to 
investigate and prosecute trafficking crimes.

    Question. What current USAID missions in Ukraine have been affected 
by Russian aggression in the past year? Have these instances affected 
project design for future missions? If so, how would you address these 
interruptions?

    Answer. Following the Maidan, USAID has strategically refocused 
several programs in Ukraine to respond to the rapidly changing 
environment in Ukraine which has been impacted by increased Russian 
aggression, the conflict in Ukraine's east, and the severely weakened 
Ukrainian economy.
    For example, I understand that the USAID economic growth 
programming for the financial sector was affected by conditions on the 
ground and as the GOU reprioritized its most pressing needs. USAID has 
strategically considered the priorities for the current and anticipated 
environment and needs of the GOU, not only for the financial sector, 
but across sectors to ensure that assistance programs are impactful and 
well targeted. My understanding is that USAID has been addressing such 
interruptions by assessing how other programs may be able to extend 
assistance, considering headquarters (Washington, DC)-managed regional 
mechanisms, and using other tools to fill gaps and address short-term 
assistance needs.

    Question. What role is USAID playing in providing humanitarian 
assistance to those areas of eastern Ukraine affected by the war? What 
are the biggest problems? Is more funding needed?

    Answer. The presence of more than 1 million registered internally 
displaced persons (IDPs) in Ukraine is a major potential source of 
instability. Tensions emanate from competition over resources and 
economic opportunity, social integration of IDPs, and diminishing 
morale and confidence in the Ukrainian state. The lawless environment, 
unstable security situation, and bureaucratic restrictions have 
severely disrupted freedom of movement into and out of the 
nongovernment controlled areas (NCGAs) of Eastern Ukraine, affecting 
civilians' access to critical services, income, and basic goods. The 
elderly, persons with disabilities, families with children, and people 
in institutional care, many of whom are unable to flee, are extremely 
vulnerable. Hospitals and clinics are only partially operational due to 
lack of medicines, medical supplies, and personnel, as well as damage 
and destruction.
    Although some international organizations and NGOs are currently 
able to operate in NGCAs, their status is precarious, in part due to 
the security situation and new registration requirements by separatist 
authorities' increasing interference by separatist authorities. The 
needs of the displaced population outside of the conflict zone have 
outstripped the response capacity of the local government and civil 
society and volunteer groups. IDP reception centers and local 
governments are overwhelmed, underresourced and underprepared for 
possible high levels of new arrivals. Burdensome administrative 
processes, challenges in replacing lost documentation, the poor state 
of the economy, and competition over limited resources continues to 
restrict the ability of IDPs to get jobs, housing, and access 
government IDP benefits. Further, there is a near total lack of direct 
service provision for survivors of gender-based violence.
    To respond to these challenges, the U.S. Government has provided 
$61.5 million in humanitarian assistance in FY 2014 and FY 2015, 
including $27.4 million from USAID.
    USAID has provided food, shelter, water supplies, cash resources 
for local procurement of food, psychosocial support, and livelihood 
assistance to the most vulnerable conflict-affected populations, 
including children, the elderly, and female-headed households.
    Before the humanitarian response was fully operational, USAID 
helped catalyze assistance to communities responding to the 
displacement crisis and has since committed $10.2 million to help 
communities and government at the local and national level to mitigate 
deepened social tensions in conflict-affected communities in the east, 
and to increase access to information and inform public debate on the 
crisis. The Agency is also committing $3 million to support help 
Ukraine's health sector efforts in addressing psychosocial trauma and 
support physical rehabilitation for people with disabilities.
    If confirmed, I will work with my team, and with the Congress, to 
assess the needs on the ground and mobilize the requisite resources.

    Question. What role do you foresee USAID playing in helping Ukraine 
hold free and fair elections later this year? Under what conditions 
would USAID be able to help separatists?

    Answer. I understand that USAID intends to provide assistance in 
training election commissions and educating voters and other 
stakeholders on an entirely new system for local elections. The 
Agency's programming will also support robust election oversight, 
including comprehensive monitoring by Ukrainian civil society. In the 
lead up to the elections, USAID has assisted and supported civil 
society engagement in improving election legislation and is supporting 
efforts to reform political and campaign finance. USAID programs 
encourage political parties and candidates to be more responsive to 
citizens and to engage more constructively with civic organizations and 
local officials between elections. I understand that USAID is providing 
approximately $3.1 million in assistance related to the upcoming local 
elections. Any local elections in the nongovernment controlled areas in 
the east would have to be conducted according to Ukrainian law and 
OSCE/ODIHR standards.

    Question. How is USAID working to help Ukraine achieve an 
independent and effective judicial system?

    Answer. USAID has been working with the Government of Ukraine (GOU) 
to develop an independent and efficient judicial system, by supporting 
judicial self-governance in Ukraine to help insulate the judiciary from 
political influence. This includes budget independence, disciplining of 
judges, judicial education, as well as the development of court 
administration functions. I understand that USAID has supported 
amendments to the Law on the Judiciary and the Status of Judges and the 
Law on the High Council of Justice. Additionally, USAID supports 
efforts to strengthen the institutional capacity of the High 
Qualifications Commission by supporting clear standards for 
transferring judges; automating the judicial qualifications exam; 
training judicial inspectors and establishing standards for 
adjudicating judicial misconduct; and developing an integrated system 
for managing judicial selection and discipline procedures. All of these 
efforts are aimed at helping Ukraine develop an independent and 
effective judicial system.
    In 2015, several notable achievements have occurred in the sector, 
many of which were directly supported by USAID assistance: the 
Verkhovna Rada passed the Law on Fair Trial, signed into law in March 
2015; the GOU passed the Justice Sector Reform Strategy in May 2015; 
the High Council of Justice is now operational again as of June 2015, 
after being blocked for over a year, and is proceeding to consider a 
backlog of cases regarding approval of transfer, reprimand, and 
dismissal of judges; and the judiciary amendments to the constitution 
have been drafted and the Venice Commission issued a preliminary 
opinion on July 24 positively assessing the judicial amendments to the 
constitution with some key recommendations to further improve these 
amendments. The success of these current interventions will be both the 
foundations for genuine rule of law reform, and serve as indicators for 
progress, such as judiciary amendments to the constitution, and the 
GOU's ability to reform core judicial functions and roles, including 
lustration of judges and limiting judicial immunity.

    Question. Given that Ukraine's current natural gas exchange with 
Gazprom, as well as imports from Poland, Hungary, and Slovakia, is a 
temporary solution at best, what is USAID doing to address the short-
term ``reverse-flow'' supply shortage of natural gas?

    Answer. USAID support to Ukraine is part of a broad U.S. 
interagency and multidonor effort that balances near term priorities 
with longer term development needs, focusing on areas of greatest 
impact. The Department of Energy and the State Department Energy and 
Natural Resources Bureau are focused on improved natural gas production 
and alternative supply arrangements.
    USAID continues to focus on near term activities to lessen external 
energy market pressure on Ukraine, specifically through the 
stabilization of Ukraine's power sector in light of external pressure 
on fuel supply; and providing legal regulatory support to move Ukraine 
into European Union energy markets and offering protections associated 
with inclusion in a larger market.
    My understanding is that medium- to long-term activities focus on 
setting the groundwork for Ukraine to upgrade its energy sector to 
modern standards, specifically through improving the investment 
environment necessary for energy supply diversification and energy 
efficiency; and improving energy sector governance to help curb corrupt 
practices and wasteful mismanagement.

    Question. In the latest USAID-Department of State (DOS) joint 
strategic plan, USAID and DOS list Strategic Goal 3 as promoting a 
transition to ``low-emission, climate resilient'' energy projects. 
Considering the dire economic situation in Ukraine, Kosovo, Bosnia, and 
Herzegovina and others, as well as the precarious energy situation in 
light of Russian energy dependence and aggression, do you see this as a 
viable economic goal for these counties? What research is USAID doing 
to compare the immediate cost-benefit and investment necessary for 
pursuing ``green'' technologies over other more cost-effective sources 
of power that could help jumpstart these economies?

    Answer. USAID seeks to support the mutually reinforcing goals of 
enhanced energy security, EU integration, and accelerated transition to 
a sustainable, clean energy economy throughout the region, following 
five key tenets:

    1. Diversification of energy imports and domestic supplies is 
essential to reduce vulnerability to potential disruptions.
    2. Integrated regional electricity and gas networks and markets are 
needed to enhance security, foster energy development, and tap 
economies of scale.
    3. Rational energy pricing and harmonized, transparent energy 
regulatory frameworks are required to attract private investment to 
modernize energy infrastructure and develop new supplies.
    4. Improved energy efficiency and renewable energy development can 
contribute to enhancing energy security as well as increased 
competitiveness, sustainable economic growth and GHG emissions 
reduction.
    5. Addressing the energy needs of low income and vulnerable 
populations is a necessary component of an overall energy reform 
program.

    USAID works toward these objectives through support of the Energy 
Community Treaty, which seeks to harmonize energy and environmental 
practices and regulations of the Contracting Parties of the Balkans and 
Eastern Europe countries with those of the European Union. 
Accomplishing this goal would modernize energy governance in the E&E 
region and link E&E countries to the EU internal energy market, 
enhancing energy security and encouraging investment, regardless of the 
chosen electric generation technology.

    Question. Kosovo has suffered from shortcomings in the rule of law, 
including corruption and organized crime. What role is USAID playing to 
help Kosovo in this area? What results have been achieved?

    Answer. USAID has been supporting Kosovo's justice sector since 
Kosovo gained its de facto independence from the former Yugoslav 
Republic. USAID helped establish the Kosovo Judicial Council (KJC) and 
worked to support the Kosovo Prosecutorial Council, Kosovo Judicial 
Institute, Ministry of Justice and other justice sector institutions. 
The Agency played a key role in the process of judicial reappointments 
and vetting of judges in Kosovo. Through its efforts with the KJC, 
USAID has helped the Kosovar judiciary develop objective and 
transparent performance criteria to allow judges to do their work more 
effectively and efficiently. The Agency has also been working to reduce 
the backlog of cases in Kosovo, introduce more effective case 
management techniques, and professionalize the cadre of court 
administrators and managers. By introducing more transparent and 
streamlined court and case management techniques, USAID has helped to 
reduce opportunities for corruption in the judiciary in Kosovo. For 
example, I understand that through one USAID program the KJC drafted 
and approved its first strategic plan since 2007, providing the courts 
a roadmap to improve the work and independence of the judiciary and 
implemented a backlog reduction strategy, including a case tracking 
database to register all current and pending court cases. Over 20,000 
cases have been reviewed and over 5,000 cases have been closed. In 
addition, 18 courts have been refurbished in compliance with 
international standards, significantly increasing court staff 
efficiency, public accessibility, and accommodation for persons with 
disabilities.

    Question. How do USAID programs help the nation of Georgia reduce 
its economic and energy dependence on Russia?

    Answer. My understanding is that USAID's programs in Georgia are 
oriented around the goal of strengthening and sustaining a democratic, 
free-market, Western-oriented transformation in that country. Specific 
components of the Economic Growth program seek to improve the business 
enabling environment for trade and investment and strengthen ties with 
the West. This includes support for harmonization of Georgia's laws and 
regulations with its Deep and Comprehensive Free Trade Agreement 
(DCFTA) with the European Union, promotion of East-West trade via the 
New Silk Road linking the Black Sea to Central and East Asia, and 
development of policies and regulations in the energy sector to promote 
energy security and regional trade of electricity.
    Contributions by USAID and other donors have helped Georgia to 
reduce its dependency on Russia in the areas of fossil fuels, oil and 
gas, through the establishment of the Southern Corridor for oil and 
gas. Over the last decade USAID/Georgia installed gas pipelines from 
Azerbaijan; built electricity infrastructure; leveraged hundreds of 
millions of dollars in private financing for hydropower generation; and 
built the capacity of the Ministry of Energy, the energy regulator, the 
Transmission System Operators and other stakeholders to assess, model, 
plan, and implement all the steps necessary to set up an open 
electricity market. Current assistance is devoted to increasing energy 
efficiency.
    In the gas sector, by laying pipeline to transport gas from 
Azerbaijan through Georgia, the country has already decreased its 
reliance on Russian exports. In 2013 Georgia imported 27 percent less 
gas from Russian and 1,052 percent more gas from Azerbaijan than it had 
in 2010 when USAID assistance began.
    In the electricity sector, USAID is helping transition the country 
into an open-market system in which Georgia is able to trade freely 
with Turkey. By opening the Georgian market to Turkey, Georgia will be 
able to access the wider European market for exports of its native 
hydrogeneration resources, and in so doing, will invite increased 
foreign, likely European, investments in hydrogeneration within its 
borders--and decrease dependency on Russian trade. Increased 
hydrogeneration capacity within Georgia and a direct connection to 
European markets will significantly decrease, if not eliminate, the 
country's remaining reliance on Russian electricity markets.

    Question. Is Georgia making progress in creating an independent 
judiciary? How is USAID helping Georgia develop a depoliticized 
judicial system?

    Answer. I believe that Georgia is making progress to create a more 
independent judiciary, but challenges remain to further strengthen its 
judiciary. USAID has played a leadership role in supporting Georgia's 
efforts to develop an independent judicial system for more than a 
decade. Specifically, USAID efforts have strengthened the High Council 
of Justice (HCOJ), the High School of Justice (HSOJ), as well as the 
Ministry of Justice (MOJ), the Legal Aid Service (LAS), and the 
National Center for the Development of the Quality in Education 
(NCDQE). Institutional independence of the judiciary insulates judges 
from political influence and coercion. I understand that USAID has 
engaged with a number of prominent NGOs, such as the Eurasia 
Partnership Foundation (EPF) and its affiliate the Caucasus Resource 
Research Center (CRRC), as well as the Georgian Young Lawyers 
Association (GYLA), and Transparency International (TI) to provide 
external oversight of the judiciary and make the system more 
transparent to the public and reduce opportunities for abuse and 
corruption. Most recently, the composition of the High Council of 
Justice was changed to bring in members of civil society, which reduces 
political control of the Chair of the Supreme Court.

    Question. What lessons can USAID learn from programs in Georgia in 
the wake of Russian aggression that it could apply to Ukraine?

    Answer. My understanding is that USAID's efforts in Georgia have 
informed how USAID addresses similar challenges in Ukraine. In response 
to a crisis like we saw in Georgia in 2008 and in Ukraine today, 
timely, coordinated assistance, based on an assessment of needs can 
have powerful and lasting impacts. For example, USG contributions to 
economic stabilization in Georgia, combined with those of other 
partners, likely prevented a much deeper and more drawn out economic 
decline, in the face of both conflict and global recession. Years 
later, beneficiaries are aware and appreciative of U.S. emergency 
humanitarian and long-term development assistance.
    One of the greatest challenges facing Ukraine is the legacy of 
corruption. Georgia has demonstrated that the best way to fight 
corruption is to get out in front of the problem and put in place 
systems for transparency and proactive disclosure of information. USAID 
has been instrumental in helping to put many of these systems into 
place. This includes strengthening the professionalism of the State 
Audit Office so that it can exercise its independence, working with the 
Ministry of Justice to enhance freedom of information requirements, 
expanding the use of open government data through Georgia's open data 
portal, helping the Competition and State Procurement Agency stand up a 
Dispute Resolution Board, and setting the stage for a new civil service 
legal framework based on open competition and consistent standards. 
Many of these activities were coupled with grants to civil society to 
monitor compliance and hold government accountable to its promises.

    Question. What is your opinion of USAID Forward and other reform 
efforts? If so, how do you see these reforms being implemented in 
Eastern European and Eurasian nations specifically?

    Answer. I understand that USAID has implemented a series of reforms 
over the last several years, known collectively as USAID Forward. By 
all accounts, these reforms have strengthened the Agency's focus on 
results, partnership, and innovation over the past 5 years. USAID now 
has in place a rigorous and transparent process for designing 
strategies and projects while evaluating their achievement of results 
in a more focused and selective manner. Its partnership agenda has 
grown substantially. USAID's direct partnering with local actors and 
local systems, which has almost doubled since 2010, reflects the 
Agency's commitment to creating processes whereby countries own, 
resource, and sustain their development. It has also increased its 
emphasis on innovative approaches through the use of science, 
technology and open innovation.
    Regarding implementation of USAID Forward in Europe and Eurasia, I 
understand that efforts are furthering collaboration among external 
partners, leveraging additional resources, and increasing innovation 
through two Science, Technology, Innovation and Partnership (STIP) 
leader Missions. Public-private partnerships in the region are highly 
leveraged and direct support to local organizations has increased 
tremendously.
    Additionally, USAID's development projects are designed with 
monitoring mechanisms at the forefront, allowing for objective 
evidence-based evaluations of development projects and for ensuring a 
responsible use of resources. Evaluations are used in the region to not 
only track progress and results, but to provide evidence that will 
inform management decisions for improvements that are needed, and to 
inform follow on or future programming.

    Question. Specifically, what is your plan for implementing ``local 
solutions'' to promote country ownership while also ensuring reasonable 
accountability measures? Do you believe these two goals are compatible 
for Ukraine in its current state?

    Answer. I understand that USAID is committed to enabling countries 
to lead, resource, and sustain their own development. This is a 
commitment I share and, if confirmed, will prioritize in Europe and 
Eurasia. I agree that country ownership should be at the core of how 
USAID does business. At the same time, USAID should and does exercise 
robust oversight and maintain appropriate fiduciary controls to 
safeguard taxpayer dollars and ensure prudent investments with an 
increased emphasis on solid project design with clear purpose and 
measures of progress and evidence-based monitoring and evaluation.
    With regard to Ukraine specifically, my understanding is that USAID 
integrates anticorruption activities into every project design in 
Ukraine. For example, anticorruption measures are included in programs 
to support the judiciary, education, health/pharmaceutical procurement, 
e-governance, permitting, financial disclosure, and energy, 
agriculture, and economic development.
    After many years of false starts, under the current government in 
Kiev, the world is beginning to see progress on implementation of 
anticorruption reforms in Ukraine. More than a dozen key pieces of 
legislation have been passed, including laws to establish the National 
Anti-Corruption Bureau (NABU) and the National Anti-Corruption 
Prevention Agency (NAPC). The Ukrainian government is in the process of 
standing up these two agencies, which are critical to fighting 
corruption.
    USAID has bolstered monitoring and independent evaluations in the 
region by organizing monitoring workshops for implementing partner 
staff, and contracting for independent evaluations of its programs to 
ensure intended impact, including three such evaluations in Ukraine 
last year. If confirmed, I will build on these efforts to strengthen 
the monitoring and evaluation of Agency programming, including in 
Ukraine.

    Question. Historically, some have cited tensions between USAID and 
the Department of State, stating that USAID efforts are often 
supplanted by the diplomatic imperatives of DOS. Do you feel this is 
the case? If so, other than publishing the joint strategic plan every 5 
years, how else do you plan to work with DOS to ensure that USAID 
missions are not sidelined?

    Answer. All agencies report to the President of the United States 
and seek to implement his articulated policies. While each agency has 
its distinct role to play, I believe that the inevitable tensions that 
emerge in large organizations can be effectively mitigated and 
minimized through personal diplomacy and a tone of collaboration and 
complementarity that is set by senior officials. During my time at the 
Department of State, from 2010 to 2015, I actively reached out to USAID 
and to other agencies--including the Department of Defense, the 
Department of Justice, and of course, the National Security Council 
staff--to ensure that funded programs and diplomatic initiatives were 
mutually understood and reinforced. This included joint missions to a 
number of countries in the E&E region, including with the previous 
Assistant Administrator, Paige Alexander, and other counterparts across 
the U.S. Government. These visits were, in my opinion, valuable in 
enhancing collaboration and finding an appropriate balance between 
diplomatic imperatives and development goals. If confirmed, I hope to 
continue this practice with colleagues at the Department of State and 
other U.S. agencies.

                               __________


                              NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 30, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Lucy Tamlyn, of New York, to be Ambassador to the Republic of 
        Benin
Jeffrey J. Hawkins, Jr., of California, a Career Member of the 
        Senior Foreign Service, Class of Counselor, to be 
        Ambassador to the Central African Republic
David R. Gilmour, of Texas, to be Ambassador to the Togolese 
        Republic
Daniel H. Rubinstein, of Virginia, to be Ambassador to the 
        Republic of Tunisia
Carolyn Patricia Alsup, of Florida, a Career Member of the 
        Senior Foreign Service, Class of Counselor, to be 
        Ambassador to the Republic of the Gambia
                              ----------                              

    The committee met, pursuant to notice, at 2:04 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
presiding.
    Present: Senators Flake, Gardner, Murphy, and Markey.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Thank you all for being here. It is nice to see the 
nominees and family members, as well. That is always the best 
part.
    Today, we have ambassadorial nominees for Benin, Togo, 
Central African Republic, Tunisia, and The Gambia. These are 
all important and challenging posts, to put it mildly. I look 
forward to hearing from today's nominees about how diplomatic 
engagement can help build positive economic and political 
trends in Benin and Togo, and how to address ongoing challenges 
that we have in Tunisia, which is often said to be, as we spoke 
about yesterday, the most successful democratic transition of 
those who were involved in the Arab Spring.
    If confirmed, the Ambassador-designate will mark the return 
of the U.S. Ambassador to Bangui, following a 2-year gap. That 
is significant. I look forward to hearing how U.S. interests, 
including stability, can be advanced in the complex 
environment, certainly, in Central Africa.
    Finally, the committee is eager to hear about the best way 
to go forward in The Gambia as well.
    I look forward to all of you sharing your expertise.
    Senator Markey is voting and will come back here shortly, 
but we will go ahead and get started. I am glad to have Senator 
Gardner here. I know he has to leave shortly, but I appreciate 
his interest.
    The first nominee is Lucy Tamlyn. Ms. Tamlyn is a career 
Foreign Service officer with the Foreign Service and currently 
is serving as director in the Office of Special Envoy for Sudan 
and South Sudan. Ms. Tamlyn has served in a wide range of 
overseas positions, including Deputy Chief of Mission in 
Lisbon, economic consular at the U.S. mission in the OECD in 
Paris, Provincial Reconstruction team leader in Iraq. And Ms. 
Tamlyn also served as Deputy Chief of Mission in Chad.
    So glad to have you here.
    Our second nominee is David Gilmour. Mr. Gilmour is a 
career Foreign Service officer and currently serves as Deputy 
Assistant Secretary in the Bureau of African Affairs. 
Previously, Mr. Gilmour led the Africa Bureau's Public 
Diplomacy Office. Mr. Gilmour's numerous overseas assignments 
include Deputy Chief of Mission in Panama City, Panama, and in 
Malawi as well.
    Jeffrey Hawkins is our third nominee today. He is a career 
member of the Foreign Service also, most recently consul 
general in Lagos, Nigeria. Prior to that assignment, he was 
director of the South and Central Asian Affairs Office in the 
Bureau of Democracy, Human Rights and Labor. He served in a 
number of overseas assignments, as you all have, including 
Deputy Chief of Mission in Angola, Brunei, and political 
economic chief at the U.S. Embassy in Kabul, Afghanistan.
    Daniel Rubinstein is a career Foreign Service officer as 
well. He most recently served as Special Envoy for Syria, a 
place without any problems at all, so thank you for your 
service there. That is the position that he has held since 
2014. Previously, he served as Principal Deputy Assistant 
Secretary of State in the Bureau of Intelligence and Research. 
Mr. Rubinstein's overseas leadership positions include serving 
as consul general in Jerusalem, chief of the Civilian Observer 
Unit in the Sinai in Egypt, and Deputy Chief of Mission in 
Amman, Jordan. He also served as director of the Office of 
Israel and Palestinian Affairs.
    Finally, we have Carolyn Patricia Alsup, a career member of 
the Foreign Service. Ms. Alsup also served recently as Deputy 
Chief of Mission in Ghana. Previously, she led the Office of 
Central African Affairs and Deputy Chief of Mission in The 
Gambia. So this will be a return trip for you, if confirmed. 
Ms. Alsup also held a number of positions in economic affairs 
at the State Department, including serving as executive 
assistant of the Economic Bureau and special assistant in the 
Office of Under Secretary of Economics, Business and 
Agricultural Affairs.
    Thank you all for being here, and I appreciate your service 
and meeting with you before. I am just amazed at the sacrifices 
that you made and that your families have made as well.
    I appreciate having family members here. I hope that you 
will introduce them as you begin your remarks.
    And we will recognize Lucy Tamlyn first.

           STATEMENT OF LUCY TAMLYN, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF BENIN

    Ms. Tamlyn. Thank you. Mr. Chairman and members of the 
committee, it is a great honor for me to appear before you 
today. I am grateful to President Obama and Secretary Kerry for 
the confidence they have placed in me as their nominee for 
Ambassador to the Republic of Benin.
    My husband, Jorge Serpa, is here today, representing many 
far-flung family members, especially our children, Ben and 
Filipa. Unexpected evacuations and long separations have not 
dampened their enthusiasm or the pride they take in being part 
of the Foreign Service family. I know that I could not have 
come this far without their support.
    I joined the Foreign Service in 1982 and have served in 
positions of increasing responsibility across three continents, 
including three assignments with the Bureau of African Affairs.
    Working alongside of, and learning from, extraordinary 
colleagues and leaders in the State Department, I have gained 
the experience and the understanding, which, if confirmed, will 
enable me to faithfully represent and advance U.S. interests in 
Benin.
    Mr. Chairman, Benin is a strong partner of the United 
States. The people of Benin are justly proud of their 
democratic traditions and record of peaceful transfers of 
power. President Thomas Boni Yayi, serving his second and final 
5-year term, was invited by President Obama in 2011 to the 
White House as one of four African Presidents representing 
Africa's democratic progress, which, as President Obama stated 
at the time, is vital to a stable and prosperous Africa, and 
also critical to the stability and prosperity of the world.
    With 50 percent of the Beninese population under 18 years 
of age, Benin is a vibrant and dynamic nation rich in culture, 
history, and potential. We partner with the Government of Benin 
to provide a helping hand to support the inclusive economic 
growth, which is the centerpiece of the country's own poverty 
reduction strategy, and which will enable the people of Benin 
to achieve a better future for themselves and their families.
    Our largest assistance program targets malaria, a disease 
which is particularly deadly for the young and which takes an 
enormous economic toll on the economy.
    Benin is on track to receive a second Millennium Challenge 
Compact, a reflection of its ability to sustain high rankings 
in the MCC's political, economic, and social indicators, and to 
muster the political will to address shortcomings when those 
rankings slip.
    U.S. investment in Benin through the Millennium Challenge 
Account will help address energy shortfalls, which are a 
serious impediment to economic growth.
    Benin is a strong regional partner on other fronts. It has 
stood with its neighbors to confront the horrors of Boko Haram 
and is a member of the Lake Chad Basin Multinational Joint Task 
Force, to which it has pledged a battalion.
    The government partners with the United States and other 
international donors to combat drug trafficking, piracy, and 
maritime crime.
    Our shared human rights values are reflected in the stands 
that Benin takes in international fora and its multiple 
contributions to peacekeeping operations worldwide, including 
in Cote d'Ivoire, Mali, and the Democratic Republic of the 
Congo.
    But challenges remain internally and externally for Benin. 
Robust economic growth is essential to meet the needs of the 
people. But despite considerable efforts on the part of 
President Yayi's government, extreme poverty and corruption 
remain serious obstacles to achieving development goals.
    The country is vulnerable to economic shocks, particularly 
emanating from larger economies in the region. Transnational 
organized crime can flourish where borders are porous and 
thinly surveilled, and where corruption corrodes the rule of 
law.
    And finally, extremist violence threatens Benin's near 
neighbors, where perpetrators of such violence find recruits in 
disenfranchised and vulnerable communities.
    My priorities, if confirmed, will be to identify those 
areas where U.S. partnership can assist the government and 
people of Benin continue as a beacon of democracy, stability, 
peace, and tolerance in the region. I will seek to further 
strengthen the ties of friendship and understanding with the 
people of Benin. And I will look for ways to advance U.S. 
interests for the benefit of the American people through a 
partnership with Benin, which bolsters the fight against 
transnational organized crime and enables us to stand together 
for shared values internationally.
    Benin has welcomed more than 2,000 Peace Corps Volunteers 
over the years, and in the truest spirit of partnership, these 
Volunteers have given much and received much from the host 
communities in which they worked.
    Kate Puzey was one such Volunteer whose life was tragically 
cut short, but whose memory very much endures. If confirmed, 
one of my highest priorities will be to continue to work with 
the Government of Benin for justice for Kate Puzey and our 
family.
    Thank you, Mr. Chairman, members of the committee, for the 
opportunity to address you today. I am very happy to take any 
questions that you may have.
    [The prepared statement of Ms. Tamlyn follows:]

                   Prepared Statement of Lucy Tamlyn

    Mr. Chairman and members of the committee, it is a great honor for 
me to appear before you today. I am grateful to President Obama and 
Secretary Kerry for the confidence they have placed in me as their 
nominee for Ambassador to the Republic of Benin.
    My husband, Jorge Serpa, is here today representing many far-flung 
family members, especially our children, Ben and Filipa. Unexpected 
evacuations and long separations have not dampened their enthusiasm or 
the pride they take in being part of the Foreign Service family. I know 
that I could not have come this far without their love and support.
    I joined the Foreign Service in 1982 and have served in positions 
of increasing responsibility across three continents, including three 
assignments with the Bureau of African Affairs. Working alongside of, 
and learning from, extraordinary colleagues and leaders in the State 
Department, I have gained the experience and the understanding which, 
if confirmed, will enable me to faithfully represent and advance U.S. 
interests in Benin.
    Mr. Chairman and members of the committee, Benin is a strong 
partner of the United States. The people of Benin are justly proud of 
their democratic traditions, and record of peaceful transfers of power. 
President Thomas Boni Yayi, serving his second and final 5-year term, 
was invited by President Obama in 2011 to the White House as one of 
four African Presidents representing Africa's democratic progress, 
which as President Obama stated at the time, is vital to a stable and 
prosperous Africa, and also critical to the stability and prosperity of 
the world.
    With 50 percent of the Beninese population under 18 years of age, 
Benin is a vibrant and dynamic nation rich in culture, history, and 
potential. We partner with the Government of Benin to provide a helping 
hand to support the inclusive economic growth which is the centerpiece 
of the country's own poverty reduction strategy, and which will enable 
the people of Benin to achieve a better future for themselves and their 
families. Our largest assistance program targets malaria, a disease 
which is particularly deadly for the young, and which takes an enormous 
economic toll on the economy. Benin is on track to receive a second 
Millennium Challenge Compact, a reflection of its ability to sustain 
high rankings in the MCC's political, economic and social indicators, 
and to muster the political will to address shortfalls when those 
rankings slip. U.S. investment in Benin through the Millennium 
Challenge Account will help address energy shortfalls, which are a 
serious impediment to economic growth.
    Benin is a strong regional partner on other fronts. It has stood 
with its neighbors to confront the horrors of Boko Haram and is a 
member of the Lake Chad Basin Multinational Joint Task Force, to which 
it has pledged a battalion. The government partners with the United 
States and other international donors to combat piracy, drug 
trafficking, and other maritime crime. Our shared values are reflected 
in the stands that Benin takes in international fora and in its 
multiple contributions to peacekeeping operations worldwide, including 
in Cote d'Ivoire, Mali and the Democratic Republic of the Congo.
    But challenges remain internally and externally for Benin. Robust 
economic growth is needed to meet the needs of the people, but despite 
considerable efforts on the part of President Yayi's government, 
extreme poverty and corruption remain serious obstacles to development. 
The country is vulnerable to external shocks, particularly emanating 
from larger economies in the region. Transnational Organized Crime can 
flourish where borders are porous and thinly surveilled and where 
corruption corrodes the rule of law. And finally, extremist violence 
threatens Benin's near neighbors, as perpetrators of such violence find 
recruits in disenfranchised and vulnerable communities.
    My priorities, if confirmed, will be to identify those areas where 
U.S. partnership can assist the government and people of Benin continue 
as a beacon of democracy, stability, peace and tolerance in the region. 
I will seek to further strengthen the ties of friendship and 
understanding with the people of Benin. And I will look for ways to 
advance U.S. interests for the benefit of the American people through a 
partnership with Benin which bolsters the fight against transnational 
organized crime and enables us to stand together for shared values 
internationally.
    Benin has welcomed more than 2,000 Peace Corps Volunteers over the 
years and--in the truest spirit of partnership--these Volunteers have 
given much, and received much, from the host communities in which they 
worked. Kate Puzey was one such volunteer whose life was tragically cut 
short--but whose memory very much endures. If confirmed, one of my 
highest priorities will be to continue to work with the Government of 
Benin for justice for Kate Puzey and her family.
    Thank you, Mr. Chairman and members of the committee for the 
opportunity to address you today. I am very happy to take any questions 
which you may have.

    Senator Flake. Thank you.
    Mr. Gilmour.

        STATEMENT OF DAVID R. GILMOUR, NOMINATED TO BE 
              AMBASSADOR TO THE TOGOLESE REPUBLIC

    Mr. Gilmour. Thank you, Mr. Chairman. I have submitted a 
longer versions of my statement for the record.
    Mr. Chairman, I am honored to appear before you today, and 
I am grateful to President Obama and Secretary Kerry for the 
confidence they have placed in me as their nominee for 
Ambassador to Togo. I am also grateful for the support of 
Assistant Secretary of State for African Affairs Linda Thomas-
Greenfield.
    I am joined today by my wife, Judith Martin, who has spent 
a lifetime in the Foreign Service, first with her father, S. 
Douglas Martin, a career State Department officer, and her 
mother, Pauline, and later as my cherished partner as we 
traveled the world and raised our family in eight overseas 
posts and in Washington during my 29 years in the Foreign 
Service.
    Also, here is our son, Tristan. Our other two children, 
Miles and Schyler, are watching online from Texas.
    I would also like to acknowledge my father, John Gilmour, 
who could not be here today. He worked for 34 years in local 
government, proudly serving the citizens of the small town in 
Michigan where I grew up. Everything I know about integrity, 
treating people with respect, and dedication to public service, 
I learned from my dad.
    Mr. Chairman, I believe my service in four African posts 
and in senior positions in Washington, as well as postings 
elsewhere in the world, including as Deputy Chief of Mission in 
Panama, have prepared me for this assignment. If confirmed, I 
will draw upon these experiences to advance U.S. interests in 
Togo and the West African region.
    The United States and Togo enjoy a strong relationship and 
broad mutual interests. Togo lies at the heart of West Africa, 
a region that is important to the security of the United 
States, and to which the United States has long-standing 
economic and cultural ties.
    Mr. Chairman, our policy priorities in Togo are to 
safeguard the welfare of American citizens, promote democracy 
and good governance, improve maritime security in the Gulf of 
Guinea, promote human rights, combat transnational crime, 
advance commercial opportunities for U.S. business, and improve 
the quality of health care and education.
    Togo is recovering from 15 years of political and economic 
isolation that began in the early 1990s due to political 
instability. The country's long cycle of decline ended in 2007, 
following largely free and fair legislative elections.
    The political situation has stabilized over the past few 
years, and successive elections were recognized by the 
international community as free and fair, despite some 
shortfalls.
    Most recently, Presidential elections in April of this year 
were judged credible by international observers, and the United 
States congratulated the people of Togo for exercising their 
democratic rights.
    The country is presently at peace. Should I be confirmed, I 
will work to maintain a peaceful, transparent, and fair 
political climate, thereby consolidating and expanding on the 
democratic gains of the past several years.
    Togo has been a willing partner in advancing security in 
West Africa and beyond. If confirmed, I look forward to helping 
enhance Togo's ability to police and regulate the Gulf of 
Guinea and to expand their capacity to train and deploy 
peacekeepers, as they have successfully done in Mali, Darfur, 
Cote d'Ivoire, and many other conflicts.
    If confirmed, I will strongly support Togo's efforts to 
address the challenges or corruption, wildlife trafficking, 
smuggling, and trafficking in persons, which also threaten the 
national interests of the United States.
    The Government of Togo recognizes that improving the 
investment climate is key to sustained economic growth and 
eliminating poverty. If confirmed, I will support reforms that 
promote investment and provide opportunities for American 
companies. I will work to strengthen Togo's developing role as 
a regional trade and transportation hub, and encourage Togolese 
entrepreneurs to take full advantage of the opportunities 
provided by AGOA.
    Thank you, Mr. Chairman, for this opportunity to address 
you. If confirmed, I look forward to working with you in 
representing the interests of the American people in Togo. I am 
happy to answer any questions. Thank you.
    [The prepared statement of Mr. Gilmour follows:]

                 Prepared Statement of David R. Gilmour

    Mr. Chairman and members of the committee, I am honored to appear 
before you today, and grateful to President Obama and Secretary Kerry 
for the confidence they have placed in me as their nominee for 
Ambassador to Togo. I am also grateful for the support of Assistant 
Secretary of State for African Affairs Linda Thomas-Greenfield.
    I am joined today by my wife, Judith Martin, who has spent a 
lifetime in the Foreign Service, first with her father, S. Douglas 
Martin, a career State Department officer, and later as my cherished 
partner as we traveled the world together and raised our family in 
eight overseas posts and in Washington during the 29 years of my 
Foreign Service career. Also here is our son, Tristan. Our other two 
children, Miles and Schyler, will be watching online from Texas. I 
would also like to acknowledge my father, John Gilmour, who could not 
be here today. He worked 34 years in local government, serving the 
citizens of the small town where I grew up in Michigan. Everything I 
know about respect, integrity, and dedication to public service, I 
learned from my dad.
    Mr. Chairman, I believe my service in four African posts and in 
senior positions in the Bureau of African Affairs in Washington, as 
well as postings elsewhere in the world, including as Deputy Chief of 
Mission in Panama, have prepared me for this assignment. If confirmed, 
I will draw upon these experiences to advance U.S. interests in Togo 
and the West African region.
    The United States and Togo enjoy a strong relationship and broad 
mutual interests. With a population of nearly 7 million inhabitants, 
Togo lies at the heart of West Africa, a region that is important to 
the security of the United States, and to which the United States has 
long-standing cultural ties. If confirmed, I will do my utmost to 
broaden and strengthen our mutual pursuit of this shared agenda.
    Mr. Chairman, our policy priorities in Togo are to safeguard the 
welfare of American citizens, promote a representative democracy and 
good governance, improve maritime security in the Gulf of Guinea, 
promote human rights, improve the capacity to combat transnational 
crime, advance commercial opportunities for U.S. businesses, and 
improve the quality of health care and education. To achieve these 
goals, the United States has a range of programs supporting public 
health, security sector reform, international peacekeeping and economic 
development. If confirmed, I commit to working closely with our 
international partners to help Togo promote empowerment and prosperity 
for all Togolese, regardless of their ethnic, religious, regional or 
political affiliations.
    The United States established diplomatic relations with Togo in 
1960 following its independence from a French-administered trusteeship. 
Togo is recovering from 15 years of political and economic isolation 
that began in the early 1990s due to political instability. Togo's long 
cycle of decline ended in 2007, following largely free and fair 
legislative elections. The political situation has stabilized over the 
past few years, and Presidential and legislative elections, held in 
2010 and 2013, respectively, were recognized by the international 
community as free and fair, despite some shortfalls. Most recently, 
April's Presidential elections were judged credible by international 
observers, and the United States congratulated the people of Togo for 
exercising their democratic rights before, during, and after the vote. 
The country is presently at peace. Should I be confirmed, one of 
Embassy Lome's top priorities will be to support and maintain a 
peaceful, transparent, and fair political climate, thereby 
consolidating and expanding on the democratic gains of the past several 
years.
    A stable, peaceful, and prosperous Togo serves American interests 
and expands Togo's ability to contribute to regional stability. The 
United States maintains a good relationship with the Togolese military, 
which has been a willing partner in key areas such as maritime security 
and international peacekeeping. If confirmed, I look forward to 
maintaining our strong partnership with Togolese security officials to 
effectively police and regulate Togolese waters in the Gulf of Guinea. 
Additionally, if confirmed I hope to strengthen Togo's capacity to 
engage in peacekeeping missions through the Africa Contingency 
Operations Training and Assistance program, which has been active in 
Togo since 2009, and has assisted with the training and deployment of 
Togolese peacekeeping forces to Mali, Darfur, Cote d'Ivoire, Liberia, 
Burundi, Sudan, Chad, and the Central African Republic. Also, beginning 
in 2013, the Government of Togo has stepped up its effort to curb 
wildlife trafficking, making several seizures and arrests. The United 
States is providing technical expertise and material support to help 
the Togolese law enforcement community overcome this rising challenge. 
If confirmed, I look forward to maintaining our strong partnership with 
the Togolese on this issue.
    Poverty continues to breed corruption and crime, smuggling, and 
trafficking in persons. If confirmed, I will support Togo's efforts to 
address these challenges, which also threaten the national interests of 
the United States. The Government of Togo recognizes that an improving 
but still challenging investment climate and a developing but still 
weak private sector are key impediments to Togo's prospects for 
sustained economic growth, and eliminating poverty. If confirmed, I 
will take advantage of available initiatives to promote a healthy 
economy, including identification of public-private partnerships that 
include American companies and that enjoy United States Government 
guarantees. The Embassy will look to use regional programs offered 
through the U.S. Agency for International Development to strengthen 
Togo's developing role as a regional trade hub, as well as to help 
ensure that the country makes the most of Lome's deep-water port, which 
is a significant contributor to the Togolese economy. If confirmed, I 
will encourage the Togolese Government and Togolese entrepreneurs to 
take full advantages of the opportunities and preferences provided by 
AGOA.
    Development assistance to Togo provided through the U.S. Agency for 
International Development focuses primarily on improving Togo's 
national public health capacity; USAID's West African Regional Health 
Office runs multiple health programs in Togo, including HIV/AIDS 
prevention. Through the Department of Defense's HIV/AIDS Prevention 
Program monitored by Embassy Lome, 50 newborns were born free of HIV to 
HIV-positive mothers last year. This year that program has been 
expanded to include 150 mothers. If confirmed, I will look to employ 
such existing initiatives, including the multilateral partnership of 
the Global Fund to Fight Aids, Tuberculosis and Malaria (GFATM), to 
assist the Togolese Ministry of Health in improving basic public health 
programs and treating and eradicating disease. The Embassy in Lome will 
also continue to support a robust Peace Corps presence in country with 
a programmatic focus on health, especially on HIV/AIDS awareness and 
prevention.
    Thank you, Mr. Chairman and distinguished members of the committee, 
for this opportunity to address you. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Togo. I am happy to answer any questions you have.

    Senator Flake. Thank you.
    Mr. Hawkins.

     STATEMENT OF JEFFREY J. HAWKINS, JR., NOMINATED TO BE 
           AMBASSADOR TO THE CENTRAL AFRICAN REPUBLIC

    Mr. Hawkins. Thank you, Mr. Chairman. I am honored to 
appear before you today as the President's nominee to be the 
next Ambassador of the United States to the Central African 
Republic. I thank President Obama and Secretary Kerry for 
entrusting me with this important responsibility.
    If confirmed, I will work with Congress to advance the 
interests of the United States in the Central African Republic.
    Joining me here today is my wife, Annie. I am deeply 
grateful to Annie and to our small children, Max and Alex, for 
allowing me this opportunity to serve my country, despite the 
hardships and sacrifices that it will require of them.
    Mr. Chairman, the Central African Republic, a Texas-sized 
nation in the heart of Africa, is blessed with an abundance of 
natural resources and a resilient and entrepreneurial people. 
Sadly, however, cycles of conflict have roiled that nation for 
decades.
    Beginning in late 2012, the Central African Republic saw 
its latest and certainly its worst such cycle. Conflict left 
thousands dead and hundreds of thousands displaced. Armed 
factions, including foreign groups like the heinous Lord's 
Resistance Army, controlled large swathes of its territory. The 
picture, frankly, was bleak.
    Mr. Chairman, a transitional government, with strong 
support from the international community and the United States 
Government, is taking the first, difficult steps toward peace. 
If confirmed, my primary objective will be to support this 
process.
    We have a strong interest in CAR's success. A successful 
transition will help forestall a return to anarchy and 
atrocities on victim populations. A successful transition also 
will assist in preventing extremist and trafficking groups from 
using the country's ungoverned spaces for their own nefarious 
purposes.
    Finally, it will also aid in reducing regional instability.
    The people of the Central African Republic are clearly 
ready for a new beginning. Earlier this year, they gathered 
together in grassroots consultations to speak about their hopes 
for their nation's future. Armed groups agreed to halt the use 
of child soldiers and committed to stopping violent conflict.
    The country's political transition will culminate later 
this year with a constitutional referendum and elections.
    The international community provides key support to this 
process. In particular, the U.N. Multidimensional Integrated 
Stabilization Mission in the Central African Republic, MINUSCA, 
has operated in the country since September 2014. Nearly 10,000 
U.N. peacekeepers and some 900 French troops provide the 
security backbone for this deployment.
    The United States has made a real commitment to the 
positive change we are beginning to see in the Central African 
Republic. Over the past 2 years, we have contributed some $800 
million to assist at-risk populations, underwrite the U.N. 
effort, reform the justice sector, aid the electoral process, 
and encourage peace-building and reconciliation.
    In September of last year, with support of the Congress, we 
reopened our Embassy after nearly 2 years of closure.
    Mr. Chairman, we may not have a better opportunity to break 
the cycles of conflict in CAR. If confirmed as Ambassador, I 
will ensure that U.S. resources are used appropriately. I 
believe my deep experience in Africa, years working in post-
conflict environments like Afghanistan, and strong Foreign 
Service leadership credentials will be useful in promoting U.S. 
Government interests there.
    Mr. Chairman, members of the committee, I thank you for 
this opportunity to appear before you today, and welcome any 
questions you might have.
    [The prepared statement of Mr. Hawkins follows:]

             Prepared Statement of Jeffrey J. Hawkins, Jr.

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee to be the next Ambassador 
of the United States to the Central African Republic. I thank President 
Obama and Secretary Kerry for entrusting me with this important 
responsibility. If confirmed, I will work with Congress to advance the 
interests of the United States in the Central African Republic.
    Joining me here today are my wife, Annie, and our children, Max, 5, 
and Alex, 3. Regrettably, security conditions do not permit families to 
join our diplomats working in Bangui. I am deeply grateful to Annie and 
the boys for allowing me this opportunity to serve my country, despite 
the hardships and sacrifices that it will require of them.
    Mr. Chairman, the Central African Republic, a Texas-sized nation in 
the heart of Africa, is blessed with an abundance of natural resources 
and a resilient and entrepreneurial population.
    Sadly, however, cycles of conflict and political instability have 
roiled that nation for more than 30 years. Beginning in late 2012, the 
Central African Republic saw its latest, and worst, such cycle. 
Regional and ethnic conflict left thousands dead and hundreds of 
thousands displaced. Armed factions, including foreign groups like the 
heinous Lord's Resistance Army, controlled large swathes of its 
territory. The picture, frankly, was bleak.
    Mr. Chairman, there is now reason for hope in the Central African 
Republic. A transitional government--with strong support from the 
international community and the United States Government--is taking the 
first, difficult steps toward peace.
    If confirmed, my primary objective will be to support this process. 
Should this process succeed, a newly peaceful and democratic Central 
African Republic will face many serious challenges. We have a strong 
interest in CAR's success. A successful transition will help forestall 
a return to anarchy and atrocities on victim populations. The 
transition also will assist in preventing extremist and criminal 
trafficking groups from using the country's ungoverned spaces for their 
own nefarious purposes and in reducing regional instability. A 
successful transition will put the people of CAR in a position to 
rebuild their lives and build a better nation themselves.
    The people of the Central African Republic are clearly ready for a 
new beginning. Earlier this year, Central Africans gathered together, 
in grassroots consultations known as the Bangui Forum, to speak about 
their hopes for their nation's future. At the forum, armed groups 
agreed to halt the use of child soldiers and committed to stopping 
violent conflict. Voter registration began in June and continues to 
expand throughout the country. The country's political transition will 
culminate later this year with a constitutional referendum and 
elections.
    The international community provides key support to this process. 
In particular, the U.N. Multidimensional Integrated Stabilization 
Mission in the Central African Republic--MINUSCA--has operated in the 
country since September 2014, to reinforce the transition and protect 
civilian populations. Nearly 10,000 U.N. peacekeepers and approximately 
900 French troops provide a security backbone for this deployment.
    The United States has made a real commitment to the positive change 
in the Central African Republic. Over the past 2 years, we have 
contributed over $800 million to assist at-risk populations, underwrite 
the U.N. effort, reform the justice sector, aid the electoral process, 
and encourage peace-building and reconciliation. In September of last 
year, with support of the Congress, we reopened our Embassy after 
nearly 2 years; the Embassy is a vital platform for oversight of our 
operations and I want to recognize here the extraordinary efforts of 
our team on the ground in Bangui.
    Mr. Chairman, we may not have a better opportunity to break the 
cycles of conflict in CAR. If confirmed as Ambassador, I will ensure 
that U.S. resources are used appropriately so that they will contribute 
effectively to sustainable change in the Central African Republic. I 
believe my deep experience in Africa, years working in post-conflict 
environments like Afghanistan, and strong Foreign Service leadership 
credentials will be useful in promoting U.S. Government interests 
there.
    In closing, I would like to express particular thanks to the 
outstanding team currently serving at Embassy Bangui for their courage 
and fortitude in leading our engagement in the Central African 
Republic.
    Mr. Chairman, members of the committee, I thank you for this 
opportunity to appear before you today, and welcome any questions you 
may have.

    Senator Flake. Thank you.
    Mr. Rubinstein.

      STATEMENT OF DANIEL H. RUBINSTEIN, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF TUNISIA

    Mr. Rubinstein. Mr. Chairman, members of the committee, I 
am honored to appear before you as President Obama's nominee to 
be the next Ambassador to the Republic of Tunisia.
    I would also like to thank Secretary Kerry for placing his 
trust in me to manage the relationship with this important 
partner, and recently designated Major Non-NATO Ally.
    Before I begin, I would also like to take a moment to 
recognize and thank my family, my wife, Julie, and our 
children, Jonah and Simon. They have provided unconditional 
love and constant support throughout my career.
    Mr. Chairman, I have had the honor of serving as a Foreign 
Service officer for the last 26 years, much of it in the Middle 
East, including 1 year in Tunisia. My previous assignments have 
provided me with an extensive background in economic and 
counterterrorism issues that are critical to our partnership 
with Tunisia.
    While my time in Tunisia was before the 2011 revolution, I 
maintain an abiding respect and admiration for the country, its 
culture, and its people. If confirmed as U.S. Ambassador to 
Tunisia, I pledge to work with my colleagues in the executive 
and legislative branches of our government to advance our 
national interests and deepen this partnership.
    During President Caid Essebsi's visit to Washington in May, 
President Obama affirmed the enduring partnership between the 
United States and Tunisia based on both mutual interests and 
shared values. Tunisia's democratic progress is an important 
counterpoint to those who assert that Islam and the Arab world 
are somehow incompatible with democracy.
    Chairman Flake, let me assure you that during these 
challenging times, I am deeply cognizant that the number one 
priority of an Ambassador is the safety of Americans abroad. If 
confirmed, I assure you that I will carefully monitor the 
security environment as I seek to advance our diplomatic 
objectives, with no higher responsibility than ensuring the 
security of all U.S. citizens in Tunisia and all personnel 
under my charge.
    In addition to keeping this commitment in mind, I will also 
continue to be mindful that this is a critical time in our 
engagement with Tunisia.
    Since the 2011 revolution, Tunisia has taken remarkable and 
inspiring steps to build an accountable and representative 
democracy. But despite historic legislative and Presidential 
elections in 2014, the democratic transition and the country's 
security remain fragile.
    In recent months, Tunisia has endured two horrific 
terrorist attacks that threaten the progress so many Tunisians 
have fought for since Mohamed Bouazizi set himself alight in 
Sidi Bouzid and thus sparked the Arab Spring.
    Those vile attacks on innocent tourists and Tunisian 
citizens underline the enormous security challenges facing 
Tunisia. The reasons for radicalization are many but what is 
clear is that high levels of youth unemployment, feelings of 
marginalization, and instability in Libya are exploited by 
those who wish to undercut Tunisia's progress in the name of 
radicalism and barbaric violence.
    If confirmed, I will work with my colleagues across the 
U.S. Government to direct resources to increasing the capacity 
of Tunisian Security Forces to address and degrade the threats 
posed by groups like AQIM, Ansar al-Sharia Tunisia, and ISIL, 
which has claimed responsibility for the Bardo Museum and 
Sousse attacks.
    Tunisia's security services have made commendable progress 
in dealing with dangerous extremists, but more needs to be 
done. In the wake of the attacks, the Tunisians have asked for 
continued support for their military and internal security 
forces to include increased information-sharing, equipment, and 
training to effectively identify threats and subvert efforts of 
violent extremist groups.
    If confirmed, I will continue these endeavors, and I will 
also support reform to Tunisia's judicial, prison, and police 
forces to help make them more professional institutions that 
are more responsive and accountable to their public.
    And while security support is critical, Mr. Chairman, the 
United States must also help strengthen Tunisia's economy in 
order to address some of the root causes contributing to the 
rise of extremist violence. If confirmed, I will work closely 
with the Government of Tunisia in support of its economic 
reform agenda. I will also support the government and private 
sector's efforts to increase access to economic opportunities 
for all, to include marginalized and economically disadvantaged 
populations.
    I firmly believe that we cannot forget what makes Tunisia 
special: Its democracy. Islamists, secularists, and many in 
between are working together daily to negotiate and seek 
consensus. Tunisia is the only Arab country ranked as ``free'' 
by Freedom House. The consolidation of democratic governance 
will take time and patience as Tunisia builds its institutions 
and works to ensure the freedoms guaranteed to Tunisian 
citizens by their constitution.
    Tunisia's people expect transparency in government 
institutions, and for government officials, security forces, 
and their private sector leaders to behave in ways that are not 
corrupt and that benefit the public. If confirmed, I will 
ensure the United States continues to promote reforms that will 
address issues of transparency and accountability, and 
prioritizes the rights of the Tunisian people.
    If confirmed, Mr. Chairman, I will also pay close attention 
to the management of the Embassy and its hardworking and 
dedicated personnel. As our partnership with and assistance to 
Tunisia grows, I can assure you I will work to ensure we have 
adequate staff and resources to properly manage the many facets 
of the relationship.
    I thank you, Mr. Chairman, members of the committee, for 
the opportunity to testify before you. I can assure you today 
that, if confirmed, it will be my honor to further U.S. 
interests and strengthen our relationship with Tunisia, and I 
look forward to the opportunity to welcome you in Tunisia, if 
confirmed, and work with you and your staffs to achieve those 
goals.
    Thank you very much.
    [The prepared statement of Mr. Rubinstein follows:]

               Prepared Statement of Daniel H. Rubinstein

    Mr. Chairman, Ranking Member Markey, and members of the committee, 
I am honored to appear before you as President Obama's nominee to be 
the next Ambassador to the Republic of Tunisia. I would also like to 
thank Secretary Kerry for placing his trust in me to manage the 
relationship with this important partner, and recently designated Major 
Non-NATO Ally. Before I begin, I'd also like to take a moment to 
recognize and thank my family--my wife, Julie, and our children, Jonah 
and Simon. They have provided unconditional love and constant support 
throughout my career.
    Mr. Chairman, I have had the honor of serving as a Foreign Service 
officer for the last 26 years, much of it in the Middle East, including 
a year in Tunisia. My previous assignments have provided me with an 
extensive background in economic and counterterrorism issues that are 
critical to our partnership with Tunisia. While my time in Tunisia was 
before the 2011 revolution, I maintain an abiding respect and 
admiration for the country, its culture, and its people. If confirmed 
as U.S. Ambassador to Tunisia, I pledge to work with my colleagues in 
the executive and legislative branches of our government to advance our 
national interests and deepen this partnership.
    During President Caid Essebsi's visit in May, President Obama 
affirmed the enduring partnership between the United States and Tunisia 
based on both mutual interests and shared values. Tunisia's democratic 
progress is an important counterpoint to those who assert that Islam 
and the Arab world are somehow incompatible with democracy.
    Chairman Flake, let me assure you that during these challenging 
times, I am deeply cognizant that the number one priority of an 
ambassador is the safety of Americans abroad. If confirmed, I assure 
you that I will carefully monitor the security environment as I seek to 
advance our diplomatic objectives, with no higher responsibility than 
ensuring the security of all U.S. citizens in Tunisia and all personnel 
under my charge.
    In addition to keeping this commitment in mind, I will also 
continue to be mindful that this is a critical time in our engagement 
with Tunisia. Since the 2011 revolution, Tunisia has taken remarkable 
and inspiring steps to build an accountable and representative 
democracy. But despite historic legislative and Presidential elections 
in 2014, the democratic transition and the country's security remain 
fragile.
    In recent months, Tunisia has endured two horrific terrorist 
attacks that threaten the progress so many Tunisians have fought for 
since Mohamed Bouazizi set himself alight in Sidi Bouzid and sparked 
the Arab Spring. Those vile attacks on innocent tourists and Tunisian 
citizens underline the enormous security challenges facing Tunisia. The 
reasons for radicalization are many but what is clear is that high 
levels of youth unemployment, feelings of marginalization, and 
instability in Libya are exploited by those who wish to undercut 
Tunisia's progress in the name of radicalism and barbaric violence.
    If confirmed, I will work with my colleagues across the U.S. 
Government to direct resources to increasing the capacity of Tunisian 
Security Forces to address and degrade the threats posed by groups like 
AQIM, Ansar al-Sharia Tunisia, and ISIL, which has claimed 
responsibility for the Bardo Museum and Sousse attacks. Tunisia's 
security services have made commendable progress in dealing with 
dangerous extremists, but more needs to be done. In the wake of the 
attacks, the Tunisians have asked for continued support for their 
military and internal security forces to include increased information-
sharing, equipment, and training to effectively identify threats and 
subvert efforts of violent extremist groups. If confirmed, I will 
continue these endeavors and I will also support reform to Tunisia's 
judicial, prison, and police forces to help make them more professional 
institutions that are more responsive and accountable to their public. 
And while security support is critical, the United States must also 
help strengthen Tunisia's economy in order to address some of the root 
causes contributing to the rise of extremist violence.
    If confirmed, I will work closely with the Government of Tunisia in 
support of its economic reform agenda. I will also support the 
government and private sector's efforts to increase access to economic 
opportunities for all, to include marginalized and economically 
disadvantaged populations. I will promote these efforts through 
expanded technical support for the government's reform efforts, through 
greater coordination with international partners to leverage their 
resources and expertise, and via continued support for workforce 
development and entrepreneurship initiatives. I will prioritize the 
strengthening of Tunisia's economic institutions and increasing public 
sector transparency and accountability.
    I firmly believe that we cannot forget what makes Tunisia special: 
its democracy. Islamists, secularists, and many in between are working 
together daily to negotiate and seek consensus. Tunisia is the only 
Arab country ranked as ``free'' by Freedom House. The consolidation of 
democratic governance will take time and patience as Tunisia builds its 
institutions and works to ensure the freedoms guaranteed to Tunisian 
citizens by their constitution. Tunisia's people expect transparency in 
government institutions, and for government officials, security forces, 
and private sector leaders to behave in ways that are not corrupt and 
benefit the public. If confirmed, I will ensure that the United States 
continues to promote reforms that will address issues of transparency 
and accountability and prioritizes the rights of the Tunisian people.
    If confirmed, I will also pay close attention to the management of 
the Embassy and its hard working and dedicated personnel. As our 
partnership with, and assistance to Tunisia grows, I can assure you I 
will work to ensure we have adequate staff and resources to properly 
manage the many facets of the relationship.
    I thank you, Mr. Chairman, Ranking Member Markey, and members of 
the committee, for the opportunity to testify before you. I can assure 
you today that, if confirmed, it will be my honor to further U.S. 
interests and strengthen our relationship with Tunisia, and I look 
forward to the opportunity to welcome you in Tunisia and work with you 
and your staffs to achieve those goals.

    Senator Flake. Thank you.
    Ms. Alsup.

STATEMENT OF CAROLYN PATRICIA ALSUP, NOMINATED TO BE AMBASSADOR 
                 TO THE REPUBLIC OF THE GAMBIA

    Ms. Alsup. Mr. Chairman and members of the committee, I am 
honored to appear before you today. I wish to express my 
gratitude to the President and Secretary of State for the trust 
and confidence they have placed in me as their nominee for 
Ambassador to the Republic of The Gambia.
    If confirmed, I would embrace the opportunity to apply my 
23 years of experience as a Foreign Service officer to advance 
U.S. priorities in The Gambia. I believe my previous experience 
as Deputy Chief of Mission in The Gambia from 2005 to 2007, and 
my most recent experience as Deputy Chief of Mission at our 
Embassy in Ghana, would be particularly helpful in continuing 
to advocate for U.S. objectives in The Gambia.
    Throughout my Foreign Service career, I have relied on my 
ability to build and maintain a strong, collaborative team with 
high morale and a clear sense of purpose to advance U.S. 
interests and objectives, whether it was promoting increased 
literacy, facilitating U.S. investment, encouraging 
entrepreneurship, advancing human rights, or supporting 
democratic institutions and free and fair elections.
    I believe I am well-prepared to assume the duties and 
responsibilities of U.S. Ambassador to The Gambia and to deal 
with the many opportunities and challenges associated with that 
position.
    The United States and The Gambia share a long history 
dating back to the mid-1800s. The Gambia has a rich cultural 
heritage, perhaps made most famous in the United States by Alex 
Haley's novel, ``Roots,'' which still today brings many 
African-Americans to the country on a journey to discover their 
heritage.
    The United States is committed to helping the Gambian 
people improve their lives by promoting democratic principles, 
human rights, and economic development. If confirmed, I will 
continue our efforts to engage the Government of The Gambia on 
these core areas to accomplish our shared goal of greater 
prosperity for The Gambia and for the Gambian people.
    The Gambia is a troop-contributing country for U.N. 
peacekeeping missions, including a substantial presence in 
Darfur, a very important contribution to international peace 
and security. But peace and security must start at home.
    The Gambia, as a predominately moderate Muslim country 
where people of different faiths have long lived together with 
little tension, could play an important role in promoting 
tolerance and countering violent extremism. However, The Gambia 
will not be able to play that role to the fullest without 
making changes at home.
    We remain deeply concerned about the downward trajectory of 
The Gambia's human rights record. Gambians are being 
arbitrarily arrested and detained for longer than the 
constitutionally mandated 72-hour period, and discriminatory 
legislation and verbal and physical abuse have been targeted 
against the LGBTI community.
    Furthermore, we still do not know the whereabouts of two 
missing dual Gambian-American citizens who were last seen in 
The Gambia over 2 years ago.
    Human rights is a cornerstone of U.S. foreign policy; 
respecting and upholding human rights is also a cornerstone of 
maintaining a just and peace society, and mitigating the lure 
of violent extremism.
    In my career, I have found that when we as diplomats are 
open to dialogue, to listen and speak frankly, that we can make 
great strides in narrowing our differences on even the most 
contentious issues. If confirmed, I will seek regular dialogue 
with Gambian officials, political parties, civil society, 
journalists, youth, and women to emphasize the importance of 
respect for and protection of all human rights.
    Lastly, although the U.S. Embassy footprint in The Gambia 
is small, we are able to expand our reach through the 92 Peace 
Corps Volunteers working in the education, environment, and 
health sectors. Peace Corps has been active in The Gambia since 
1967 and has been warmly welcomed by the government and people 
of The Gambia. If confirmed, I would make my top concern the 
safety and security of the nearly 2,000 U.S. citizens in The 
Gambia, about half of whom are minors.
    Thank you, Mr. Chairman, for the opportunity to appear 
today. I would be pleased to respond to your questions.
    [The prepared statement of Ms. Alsup follows:]

                 Prepared Statement of Carolyn P. Alsup

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I wish to express my gratitude to the President and 
Secretary of State for the trust and confidence they have placed in me 
as their nominee for Ambassador to the Republic of The Gambia.
    If confirmed, I would embrace the opportunity to apply my 23 years 
of experience as a Foreign Service officer to advance U.S. priorities 
in The Gambia. I believe my previous experience as Deputy Chief of 
Mission in The Gambia from 2005 to 2007 and my most recent experience 
as Deputy Chief of Mission at our Embassy in Ghana would be 
particularly helpful in continuing to advocate for U.S. objectives in 
The Gambia. Throughout my Foreign Service career I have relied upon my 
ability to build and maintain a strong, collaborative team with high 
morale and a clear sense of purpose to advance U.S. interests and 
objectives--whether it was promoting increased literacy, facilitating 
U.S. investment, encouraging entrepreneurship, advancing human rights, 
or supporting democratic institutions and free and fair elections. I 
believe I am well-prepared to assume the duties and responsibilities of 
U.S. Ambassador to The Gambia and to deal with the many opportunities 
and challenges associated with that position.
    The United States and The Gambia share a long history dating back 
to the mid-1800s. The Gambia has a rich cultural heritage perhaps made 
most famous in the United States by Alex Haley's novel, ``Roots,'' 
which, still today, brings many African-Americans to the country on a 
journey to discover their heritage.
    The United States is committed to helping the Gambian people 
improve their lives by promoting democratic principles, human rights, 
and economic development. If confirmed, I will continue our efforts to 
engage the Government of The Gambia on these core areas to accomplish 
our shared goal of a greater prosperity for The Gambia and for the 
Gambian people.
    The Gambia is a troop contributing country for U.N. peacekeeping 
missions, including a substantial presence in Darfur, a very important 
contribution to international peace and security. But peace and 
security must start at home. The Gambia--as a predominately moderate, 
Muslim country where people of different faiths have long lived 
together with little tension--could play an important role in promoting 
tolerance and countering violent extremism.
    However, The Gambia will not be able to play that role to the 
fullest without making changes at home. We remain deeply concerned 
about the downward trajectory of The Gambia's human rights record. 
Gambians are being arbitrarily arrested and detained for longer than 
the constitutionally mandated 72-hour period, and discriminatory 
legislation and verbal and physical abuse have been targeted against 
the LGBTI community. Furthermore, we still do not know the whereabouts 
of two missing Gambian-American citizens who were last seen in The 
Gambia over 2 years ago. Human rights is a cornerstone of U.S. foreign 
policy; respecting and upholding human rights is also a cornerstone of 
maintaining a just and peace society and mitigating the lure of violent 
extremism. In my career, I have found that when we as diplomats are 
open to dialogue--to listen and speak frankly--that we can make great 
strides in narrowing our differences on even the most contentious of 
issues. If confirmed, I will seek regular dialogue with Gambian 
officials, political parties, civil society, journalists, youth and 
women to emphasize the importance of respect for, and protection of, 
all human rights.
    Lastly, although the U.S. Embassy footprint in The Gambia is small, 
we are able to expand our reach through the 92 Peace Corps Volunteers 
working in the education, environment, and health sectors. Peace Corps 
has been active in The Gambia since 1967 and has been warmly welcomed 
by the government and people of The Gambia. If confirmed, I would make 
my top concern the safety and security of the nearly 2,000 U.S. 
citizens in The Gambia, about half of whom are minors.
    Thank you Mr. Chairman for the opportunity to appear today. I would 
be pleased to respond to your questions.

    Senator Flake. Thank you all for your testimony.
    We have been joined by Chris Murphy, a Senator from 
Connecticut. Thank you for being here.
    Let me just start with a couple questions.
    Ms. Tamlyn, how can Benin take better advantage of AGOA and 
improve their economic performance? Is that a reasonable 
prospect?
    Ms. Tamlyn. Thank you, Senator. That is an excellent 
question.
    Their exports under AGOA are very small, at least those 
that are covered by AGOA. Of course, some of their primary 
exports are not covered, such as cotton.
    But I think one of the ways we can work with them to 
improve that record is, in fact, through the Millennium 
Challenge Compact, which is going to work on improving the 
supply of electricity. For many small businesses or agro 
industry, the inability to maintain a steady production line 
because of gaps in electricity coverage is a real impediment to 
economic growth and to getting those products out to market.
    So I think that is a very important contribution that we 
are making. We do hope that we will be able to see an increase 
in economic production generally and hope that that translates 
as well into products that can be exported to the United 
States, products that are valued added that U.S. consumers seek 
and that help benefit to the economy of Benin.
    Senator Flake. Thank you.
    Mr. Gilmour, to what extent does the Togolese military play 
in domestic politics?
    Mr. Gilmour. Thank you, Senator.
    The military has played less and less of a role in 
politics, fortunately, in recent years because there has been a 
process of reform since 2007. There have been successful free 
and fair elections. And part of our strategy has been to work 
with the Togolese military to increase their professionalism to 
be able to deploy peacekeeping missions.
    They have about 1,000 peacekeepers on deployment right now. 
That is both military and foreign police units that have 
deployed. I think that is the largest contingent in Mali right 
now.
    So that has helped a great deal. And then our other key 
area in working with them has been in the maritime area. They 
have been a very strong partner in terms of building their 
capacity to patrol the waters off the coast of Togo. Togo has 
become a kind of safe harbor for the region. On any given day, 
there are over 100 ships lying off of Lome, waiting to go into 
the other nearby ports and into Lome itself, because the 
Togolese military has done such a good job of patrolling their 
waters.
    Much of that is thanks to assistance from the United 
States. We have donated patrol boats and done quite a bit of 
training. If confirmed, I would certainly look forward to 
working to intensify that cooperation.
    Senator Flake. Thank you.
    Mr. Hawkins, elections have been postponed now twice in 
CAR. What is the likelihood that they will go as scheduled? And 
if so, does that allow for adequate preparation?
    Mr. Hawkins. An excellent question and one that will be 
determinate in the future of this country.
    The electoral process is underway. Elections are scheduled 
in October. There will be a constitutional referendum followed 
by Presidential elections subsequently. In November, there will 
be legislative elections. That is the plan.
    The first part of that now is voter registration, and we 
have had some fairly promising news. Registration in Bangui is 
up. Almost 300,000 people have been registered there. The 
Embassy estimates that approximately 350,000 eligible voters 
live in Bangui, so that part of the process is doing well.
    They are moving out into the provinces now to register 
voters.
    Funding remains an issue, and there is still a gap of about 
$15 million to pay for the elections. Getting election 
preparations out into those provinces, particularly in areas 
where government control is weak, is going to be an issue.
    Another issue is the voting of refugees. That is a key 
element in this because those refugee populations must be 
brought in and included, or you will not have elections that 
will reflect the will of the entirety of the people.
    So there are a lot of issues at stake, but we are there. We 
are supportive. We have done work. The U.S. Government has done 
work on the constitutional drafting process, on the electoral 
code. We are just putting in $2 million into electoral 
education. So we are hopeful that things will go ahead as 
planned.
    Senator Flake. Thank you.
    Mr. Rubinstein, what types of U.S. engagement have been 
effective in Tunisia? It is one of the best examples of 
transition after the Arab Spring. What have we done that has 
worked?
    Mr. Rubinstein. Thank you very much, Mr. Chairman, for the 
question.
    My sense is that there has been some very effective 
diplomatic engagement in the first instance, particularly to 
keep all of the leading elements of Tunisia's body politic, 
whether they were secularist, Islamist, or others, working 
together during some of these very fragile moments of the 
transition. That involved, I think, some very good engagement 
out in the field at the most senior levels.
    Of course, we provided resources to ensure that both the 
legislative and the Presidential elections occurred peacefully 
and in ways that were credible, free, and fair. So I think that 
engagement was very, very effective.
    I think on the security side, there has been as well some 
very effective engagement. The Tunisian and U.S. militaries 
have a long history of working together. That engagement has 
deepened not only through Joint Military Commissioned annual 
meetings but also through now a far more robust set of 
activities, primarily training and equipping the Tunisians on 
various capabilities, particularly in the CT area. So that is 
going to continue.
    I think on the economic side as well there has been some 
very effective engagement. We are providing some technical 
advice as they tackle some of the key critical economic reforms 
that need to be really driven home during this period. That 
includes getting a new investment code, banking reform, tax and 
customs reforms, as well as a public-private partnership law. 
We have had some really good engagement with technical advisers 
to get them where they need to be on those fronts.
    Senator Flake. That sounds like a full range.
    Mr. Rubinstein. Yes, sir.
    Senator Flake. Ms. Alsup, when we spoke in my office, we 
talked about realistic expectations about the situation in The 
Gambia. One of the issues is trafficking. How can we help in 
that regard? What impact can we have on government there?
    Ms. Alsup. I am glad you asked that question, Senator. We 
are, in fact, bringing the head of The Gambia's coordinating 
committee on anti-trafficking here to the United States for a 
seminar that is coming up in August on combating trafficking in 
persons. Through the J/TIP office at the State Department we 
also provided some training through UNODC, the U.N. Office on 
Drugs and Crime.
    Senator Flake. Thank you.
    With regard to prisoners who were released, I believe 200 a 
while ago, what do you think prompted that action?
    Ms. Alsup. Well, I think that the action was purportedly a 
gesture in honor of the Eid celebration. However, I believe 
that it was done primarily to show the world that The Gambia is 
trying to move toward a greater respect for human rights. At 
least, that is my hope that is what it means.
    Senator Flake. Thank you.
    We have been joined by Senator Markey. If we seem blurry-
eyed, we both arrived yesterday at 3:30 a.m., having just 
traveled to Africa. I am glad to have taken the trip and to be 
back.
    If you want to make any statement or launch into questions?
    Senator Markey. Thank you, Mr. Chairman.
    The chairman and I did have a great time in Africa, 
Ethiopia and Kenya, for several days.
    We thank you each for being willing to serve our country in 
the roles that you are nominated for. It is a very important 
continent, and it is just exploding economically. But 
underneath it, there are many historical tensions, problems 
that continue to exist.
    Mr. Rubinstein, I was in Tunisia 3 years ago. They were 
just drafting the new constitution, with a lot of hope for the 
country. It is where the peaceful revolution really began, and 
it turned into something that is unrecognizable in other 
countries. But in Tunisia, I think there is still a commitment 
to trying to fulfill the original ideal.
    Can you talk a little bit about that and what, from your 
perspective, is the greatest threat to Tunisia being a model 
that ultimately can be emulated?
    Mr. Rubinstein. Thank you very much, Senator.
    I share your optimism regarding Tunisia. What I would say 
though is, as opposed to a model for the rest of the Middle 
East, perhaps it is better to think of it as an example. The 
reason I mention that is because the very high number of 
differences between all of these countries in the Middle East, 
whether going through Arab Spring experiences or not.
    But certainly, it serves as an example where there was 
political compromise practiced by people of very, very 
different perspectives, if we think about Nahda on the Islamist 
side all the way through to Nida Tounes on the other side, 
strongly secular. The fact that those political movements and 
others have continued through very, very challenging times to 
work through their differences, reach consensus, and also pass 
off power, as we saw Nahda do in 2014 to the transitional 
government, concede defeat in the last elections, these are 
hopeful signs that there is significant buy-in on the part of 
really all parts of the Tunisian political spectrum to continue 
on that path of democratic transition.
    Frankly, I think what threatens it most are these horrific 
terrorist attacks. That is why the Tunisian security forces do 
need to be bolstered. They do need our help. With the 
generosity of the Congress, I suspect that we will be able to 
bring them greater security capacity, particularly in the area 
of border security.
    Senator Markey. I agree with you. I visited Tunisia, Libya, 
and Egypt in the spring of 2012. They were all drafting their 
new constitutions. They each had a Muslim Brotherhood in each 
country. It was pretty clear that each Muslim Brotherhood was 
different from the other. It is not monolithic. Each one, to a 
certain extent, has to reflect the history of its own country 
and be accommodating to it, including the 1959 constitution 
that gave equal rights to women in Tunisia. It just cannot be 
overturned overnight in a country.
    That is why Tunisia, in my mind, is something that is 
really hopeful, but we have to keep our eye on it as well.
    If I could go to Togo for a second, there was just an 
election. There was a resounding victory. It has been rejected 
by the opposition. There are accusations of fraud.
    You just heard the President, Mr. Gilmour, talk about that 
in Ethiopia before the African Union. Can you talk a little bit 
about Togo, this election, and how you view our ability to work 
for that government to make sure that it has the kind of 
credibility that the President was talking about?
    Mr. Gilmour. Thank you, Senator.
    There has been a process of political reform going on in 
Togo since 2006, with what they call the global political 
agreement that was negotiated between the opposition and the 
government. Since that time, they have had free and fair 
elections in several instances, including in April of this 
year. There were questions about the fairness of the election 
and the administration beforehand.
    Our Ambassador, Ambassador Whitehead, who is there was very 
much part of the discussions of bringing in the other 
international observers, including the International 
Organisation of La Francophonie, to help lend credibility to 
the administration of the elections.
    So everyone who was there who observed had a consensus that 
the elections were, indeed, free and fair.
    One opposition leader, as you mentioned, has rejected the 
results, but fortunately since the election, things have been 
peaceful, so people have not come out in the street to protest. 
I think we still can make progress, certainly, on the issue of 
term limits, which the President talked about in his speech in 
Ethiopia.
    In fact, term limits have been on the agenda in Togo for 
several years. There were negotiations as recently as last year 
between the government and opposition about the modalities of 
how they might work that out. In fact, in the legislature last 
year, there was legislation introduced but did not pass. So the 
government and opposition were not able to come to agreement on 
kind of the implementation and how term limits could work.
    I am told that term limits are still on the agenda and that 
the president is willing to talk about this and that the 
opposition is, of course, very much engaged in the question. So 
I would look forward to, if confirmed, continue to facilitate 
that dialogue, as Ambassador Whitehead has done.
    Senator Markey. If I could go to Gambia for a second and 
talk a little bit about that tension that exists between the 
United States and the Gambian Government over democracy and its 
operation in Gambia.
    Can you talk a little bit about that, Ms. Alsup, so we can 
get your perspective?
    Ms. Alsup. Thank you, Senator, for that question.
    Yes, there is a very real tension between the United States 
and The Gambia regarding democracy and human rights. If 
confirmed, that would be one of my priorities, to establish a 
dialogue. I believe it is important that we engage. I do not 
think that changes can be made overnight, but I think it is 
important that we continue to emphasize the importance of 
democratic principles, the importance of respect for human 
rights, particularly with regard to arrests. There have been 
many arbitrary arrests.
    We were pleased with the release of the prisoners recently. 
Many of them were the family members of people who had been 
involved in the December 30 coup attempt, so we were very 
pleased that they had been released.
    However, it is something that would be ongoing. We have had 
a good relationship now with the Foreign Minister, someone whom 
I had met with frequently when I was in The Gambia before. But 
I think we need to have that kind of dialogue that we have with 
her at all levels of the government. That would be my top 
priority, to establish that dialogue.
    Senator Markey. Thank you so much. I thank all of you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you all for being with us here today.
    Mr. Hawkins, I just wanted to talk about what you have 
learned so far in your preparation for this post, as to the 
effect of the U.S. spending and U.S. aid in CAR. I was trying 
to figure out what the number is. It looks to me around $70 
million or so, heavily in humanitarian aid and really small 
amounts of money being spent on this election. I think we have 
less than $1 million in electoral support.
    What is your sense of what we have been able to leverage 
with the amount of money that we are spending there, and what 
you have heard from folks in terms of recommendations about 
where we might need to spend more in order to get a bigger bang 
for our buck?
    Mr. Hawkins. Thank you, Senator. I appreciate that 
question.
    I think you have to break our assistance down a bit. The 
overall number in the last 2 years is quite large. It is about 
$828 million. A lot of that is for assistance for refugees and 
internally displaced people. They estimate that about 2.7 
million people in CAR need some sort of assistance. That is 
over half the population of the country. So this year alone, we 
will be providing about $101 million in that area.
    Another big ticket item is our support to MINUSCA, to the 
U.N. peacekeeping operation, our assessed contributions. I 
think for the last little bit over a year, that has run at 
about $452 million.
    So those are big and very impactful and very important 
contributions that we have made.
    In some other areas, the numbers are smaller but still 
important. One area that we are looking at very closely is the 
justice sector. The INL Bureau in the State Department has 
about $25 million to help reestablish the justice system in 
that country, in a place that has had such dreadful occurrences 
and people's rights abused in such awful way, providing people 
an outlet, a justice outlet, is hugely important. That has been 
impactful. The court has started working in Bangui, at least. 
In the first session, they went through a number of cases.
    We are also providing assistance for victims of sexual 
abuse, which in that conflict context is very important.
    Some of the contributions in other areas are smaller. The 
electoral area is certainly one that requires attention of the 
international community. The shortfall there is pretty 
significant, as I mentioned earlier. It is about $15 million. 
That is an immediate need, because those elections are taking 
place in a few months, if they hold to the schedule. So that 
is, certainly, something that we will need to look at more 
closely.
    We are not alone on this, of course. There is an 
international coalition of willing partners who have 
contributed in various ways. The International Contact Group 
for CAR just met on the 27th, and we were represented there, 
and a number of countries in the AU and others were looking at 
those issues.
    But there is a lot to do. I am very proud of the U.S. 
contributions so far. If confirmed, I look forward to 
overseeing those programs, ensuring that they are operated 
appropriately, and making the best case possible that we have 
the resources we need to move this forward.
    Senator Murphy. Having spent $800 million there, it would 
be a shame if we relatively nickel and dimed them such that 
they could not run an appropriately funded election.
    Mr. Rubinstein, I was with a big delegation in Tunisia 
earlier in the year, and I wanted to ask you a couple questions 
in that context.
    On a bipartisan basis, we were there and made a commitment 
to do everything that Tunisia needed in order to continue on 
its democratic path. Then as a member of the Appropriations 
Committee, we just voted for a foreign aid budget that did not 
fund the President's request for Tunisia, something that, from 
what I understand, the Tunisians have noticed. There seems to 
be a separation between our rhetoric and what we are able to 
deliver.
    There is some vague language in the appropriations bill 
that we are going to try to find the money somewhere else, but 
is this going to be an issue for you? Can we fulfill the 
commitments that we have made, formally or informally, if we do 
not ultimately fund the number that the President has 
requested?
    Mr. Rubinstein. Thank you very much, Senator, for that 
question.
    My sense is that the increases that are in the 
administration's request for fiscal year 2016 are very well 
grounded and they reflect some very serious needs not only in 
the security area where it is plainly obvious that Tunisia is 
facing some extremely serious threats with these two major 
attacks, but also in the economic reform and the democracy, 
governance, and rights areas.
    Frankly, if those two areas do not keep up in some way with 
the security side of the relationship, that could get out of 
whack. I think that is a problem.
    So I do sense that we have made those rhetorical 
commitments. Tunisia is counting on our support as well as that 
of other countries. Thankfully, we do have other countries that 
are in the mix. Of course, Tunisia getting support from the IMF 
and the World Bank and others. But I think they are primarily 
looking to the United States to meet these needs at this time 
and to ensure that they stay on the path, particularly, I would 
add, on the side of giving them the fiscal space so that they 
can make these very difficult economic reforms, particularly 
reforming state-owned banks, investment, tax, customs. These 
are going to entail some real choices, and probably some 
winners and losers. It will be important for us to provide that 
fiscal space for them.
    Senator Murphy. I wanted to ask you one more question, 
drawing on your long experience in the region. I tend to think 
the way that we think of the region is far too black and white. 
There are not really friends and enemies. There are degrees of 
friends and degrees of enemies or adversaries, whatever you 
want to call them.
    We had a meeting with a cross-section of opposition 
leadership while we were there that included Nahda, that 
included Rachid Ghannouchi.
    Actually, some members of our delegation chose not to take 
part in that meeting because they did not want to be associated 
with a member of an Islamist party.
    So just talk to me about how the United States deals with, 
specifically, a group like Nahda, but the general phenomenon of 
Islamist parties who cannot be completely excluded from 
political coalitions but often have values that are completely 
antithetical to those that we wish were the core of these 
emerging democracies? So maybe speak to it specifically with 
respect with Nahda, but I am sure you may have thoughts in a 
broader sense from your experience in the region.
    Mr. Rubinstein. Senator, I think you properly identified 
the key factor, and that is: Is the Islamist movement both an 
important part of the national political fabric and social 
fabric of the country? And secondly, are they playing by the 
rules? Those are two indicators that at least I have looked to 
and, if confirmed, I would look to in Tunisia to see if they 
are continuing to do what they have done so far, which is to 
participate fully and constructively in political life there, 
to engage in compromise, to be supportive of the reforms the 
country needs.
    In fact, they have been very supportive. They have formed 
key coalitions to get things done with Nida Tunis and other 
parties. That is something I think should be, frankly, 
strengthened.
    As far as other movements in other parts of the region, I 
think you made an excellent point. They do need to be looked at 
in terms of their commitments to representative democracy and 
whether they want to be a good actor, a constructive actor, and 
know how to turn over power to others when appropriate, when 
citizens have voted. On those indices or indicators, Nahda has 
done very well. Certainly, I think it has been entirely 
appropriate that we engage with them, as we do with other 
Tunisian political parties and movements.
    Senator Flake. Thank you.
    Senator Markey had a followup.
    Senator Markey. I just had a couple questions for you, Mr. 
Hawkins.
    The Central African Republic has historically not really 
had religious tensions, but they seem to have broken out. Can 
you talk a little bit about how out of character it is in the 
history of the country? And what is going on right now in terms 
of those new ethnic and religious tensions being activated?
    Mr. Hawkins. Thank you very much, Senator.
    The origins of the current cycle of conflict in CAR are 
complicated. There are many different elements to that. There 
are regional and economic, ethnic tensions that all play into 
this.
    Unfortunately, as we went from late 2012, 2013, some of 
these tensions took on, as you noted, sir, an increasingly 
sectarian flavor. I think that is a cause of real concern. That 
has been one area of emphasis for us on the policy side and on 
the assistance side, focusing again on reconciliation and 
bringing people together after this incredibly divisive period 
in their history.
    We are spending this year and last about $15 million on 
reconciliation programs.
    Given my experience in Nigeria, where we did a lot of 
interfaith work, working with evangelical Christians and Muslim 
clerics, bringing those people together is so important to 
creating a national identity, an inclusive national identity. 
If confirmed, that will be one of my priorities as Ambassador 
to the re.
    Senator Markey. Can you talk a little bit about the role of 
conflict diamonds in the Central African Republic right now?
    Mr. Hawkins. Hugely important. One of the major industries 
of the country, and again, this is a country that has been 
blessed with very rich resources and yet is at the bottom of 
every indicator for economic growth.
    Diamonds play a key part now in fueling conflict because 
many of the bad actors in CAR are sitting on diamond resources. 
And diamonds will play an absolutely crucial role in getting 
this country out of this conflict, because that will be one of 
the main sources of revenue.
    I was quite surprised, in studying for preparation for 
taking on this assignment, if confirmed, that something like 
100,000 people in a country of 5 million depend on the diamond 
industry in the CAR. So it has a huge effect.
    The focus internationally has been on the Kimberley 
Process. That coalition of producing and purchasing countries 
has suspended CAR since 2013. The Kimberley Process is looking 
very closely at ways that those parts of the diamond industry 
that are now increasingly under the international control or 
under state control can be brought into the system and that 
maybe diamonds can be used to fund good things, to fund the 
government, to fund support for the people, as opposed to 
funding conflict.
    Senator Markey. Good luck to all of you on your missions.
    And thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Markey.
    I want to thank all of you for being here. I appreciated 
meeting you all in my office. I wish you all the best. 
Certainly, our country relies on your professionalism and your 
expertise and your willingness to serve.
    And also to your families, I want to express appreciation 
for the sacrifices that they all make in their own way.
    I think one of these is an unaccompanied post. To Annie and 
Max and Alex, that is a particular sacrifice, in that regard.
    But for all of you, I know that there are a lot of 
sacrifices that are made, and we just want you to know that 
this committee and the Senate, the Congress, appreciates that.
    So thank you for your service. Thank you for what you are 
doing. We look forward to moving this process along with your 
nominations.
    I should say that the record will stay open for a couple 
days, until Friday. So if anything needs to be submitted until 
then, it will be included in the record.
    Senator Flake. Thank you very much. This meeting is 
adjourned.
    [Whereupon, at 3:03 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Lucy Tamlyn, Nominated to be Ambassador to the Republic of 
           Benin, to Questions from Members of the Committee

                ambassador-designate tamlyn's responses 
                   to questions from senator isakson
    Question. As we discussed during your office call, one of my 
highest priorities in office is ensuring that justice is done for Kate 
Puzey, who was murdered in Benin while serving as a Peace Corps 
Volunteer. There has been progress in the prosecution of this case, 
including assistance by our own FBI.

  <diamond> Will you commit to continuing the same level of engagement 
        on this issue as your predecessor, Ambassador Michael Raynor?

    Answer. If confirmed, I am committed to continuing Ambassador 
Raynor's high level of engagement to achieve justice for Kate Puzey. 
This tragedy took the life of an extraordinary young woman who was 
dedicated to improving the well-being of Beninese children--especially 
girls--and to promoting increased understanding between the United 
States and Benin through her service in the Peace Corps.
    Your ongoing engagement on this issue and numerous trips to Benin, 
including for the 5th anniversary of Kate's murder in March 2014, have 
helped keep the Puzey investigation at the forefront of bilateral 
relations. President Yayi has been consistent in his commitment to 
seeing that justice is served. The Beninese Government and law 
enforcement cooperation with U.S. authorities and U.S. law enforcement 
remains high. The U.S. interagency law enforcement team is working 
closely with Beninese counterparts to develop and pursue new leads and 
to lay the foundation for successful prosecution.
    If confirmed, I will work to continue this strong cooperation 
between the U.S interagency team and the Government of Benin. I also 
pledge to work with you to ensure this issue remains a top priority in 
U.S.-Benin relations.

                               __________

   Responses of David R. Gilmour, Nominated to be Ambassador to the 
     Togolese Republic, to Questions from Members of the Committee

               ambassador-designate gilmour's responses 
                   to questions from senator menendez
    Question. According to the most recent Country Reports on Human 
Rights, ``corruption and inefficiency were endemic in the police force, 
and impunity was a problem.''

  <diamond> What resources are available through State Department to 
        combat police corruption, and what can you do as Ambassador to 
        help Togo establish a roadmap to reforming police?

    Answer. Police modernization and training programs are available 
through the Department of State Bureau of International Narcotics and 
Law Enforcement (INL) to help combat police corruption. If confirmed as 
U.S. Ambassador to Togo, I will continue to advocate for efforts to 
modernize Togo's stance toward corruption and the prosecution of 
corruption.
    I will also continue to promote programs to combat corruption 
through the Embassy in Lome and the Bureau of International Narcotics 
and Law Enforcement (INL). The United States, through the Embassy in 
Lome and through other INL and Department of Justice programs, has 
facilitated several anticorruption workshops and other training 
opportunities for Togolese law enforcement and judicial personnel. 
Embassy Lome also enjoys a very productive working relationship with 
the Ministry of Security and Civil Protection and engages with the 
government regularly on efforts to reinforce the capacity of Togo's 
national police. This summer the Government of Togo announced the 
creation of a high authority unit tasked with preventing and fighting 
against corruption, including corruption among government officials. If 
confirmed, I will also pursue additional INL programs aimed at 
increasing police professionalism and capacity. Additionally, with 
assistance from donors such as the European Union, I will work 
collaboratively with our international partners to implement a justice 
modernization project to improve transparency and efficiency as a 
roadmap to reforming police in Togo.

    Question. The 2015 Trafficking in Persons Report indicates that 
Togo is making considerable efforts to comply with the minimum 
standards for eliminating trafficking, but has not demonstrated efforts 
to address trafficking of adults.

  <diamond> If confirmed, what steps will you take to encourage the 
        Government of Togo to increase prosecution of traffickers, and 
        enact draft laws outlawing forced labor and trafficking for 
        sexual exploitation?

    Answer. If confirmed, I will continue our call on the Government of 
Togo to step up its current efforts to convict and punish traffickers. 
I will also stress to the Government of Togo the importance of enacting 
the draft law prohibiting forced labor and forced prostitution of 
adults. To help the Togolese public better understand the complexities 
involved in human trafficking in Togo and influence their government to 
enact the draft legislation, I will increase Embassy Lome's public 
diplomacy on the issue and engage with grassroots organizations and the 
public in antitrafficking efforts.

                               __________

Responses of Jeffrey J. Hawkins, Jr., Nominated to be Ambassador to the 
  Central African Republic, to Questions from Members of the Committee

               ambassador-designate hawkins's responses 
                    to questions from senator corker
    Question. What is the status of the position held most recently by 
Ambassador Stuart Symington and what is the plan as it relates to U.S. 
engagement on the issue of facilitating a regional effort toward 
political reconciliation?

    Answer. Ambassador Stuart Symington becomes Deputy Assistant 
Security for African Affairs for the Central African Region and 
Security Affairs on August 3, but will continue to serve as the Special 
Representative for the Central African Republic (CAR). Special 
Representative Symington will continue to support our policy objectives 
in the Central African Republic by engaging and facilitating regional 
and international efforts toward the ongoing political reconciliation 
processes in CAR.

    Question. What role will the J Under Secretariat, and specifically 
the Bureau for Conflict and Stabilization (CSO) have in maintaining 
close and continuing cooperation toward a negotiated settlement and 
stabilization of the country?

    Answer. CSO is providing targeted, diplomatic, and analytic support 
in Washington and the Central African region, to Embassy Bangui, the 
Africa Bureau, and other key international actors to help advance 
critical transition processes in the Central African Republic (CAR). 
These processes include local and national-level dialogues, 
constitutional reform, reconciliation, and elections preparations, as 
part of our effort to help ensure that these initiatives continue to be 
a priority beyond the May 2015 Bangui Forum. CSO is focusing on 
analyzing atrocities and political violence risks associated with the 
transition process, and, depending on funding and the situation in 
country, providing direct on-the-ground support to programs, such as 
those associated with reconciliation and early warning/response, 
furthering the objectives which came out of the Bangui Forum.
    CSO initially deployed an employee to Bangui in May 2015 for 3 
weeks to support the Embassy in analyzing atrocities and political 
violence risks during the transition process; providing an update on 
these processes as they relate to medium and longer term goals of the 
U.S. Government, CAR Government, and international community; 
developing recommendations on how to guide next steps; and providing 
enhanced diplomatic engagement. The CSO employee returned to Bangui in 
July for another 3 weeks in order to followup on these initiatives and 
identify potential points of intervention for CSO in the areas of 
reconciliation and early-warning/response. CSO's current effort in CAR 
is supported by CSO's previous work in CAR, which includes an in-
country interagency conflict assessment and planning exercise in 2011; 
DC-based mass atrocities prevention planning in 2013; and DC-based 
national and local level dialogue consultations and research in 2014.
    Since 2011, CSO has also been involved in the counter-Lord's 
Resistance Army (LRA) mission, which includes CAR, through a field 
representative, based in Kampala, Uganda, that supports the LRA-
affected countries.

    Question. In the same vein as above, what role will the Department 
of Defense play in helping to facilitate a more stable and politically 
viable CAR in this challenging region and what priority will they have?

    Answer. The Department of Defense (DOD) will continue to support 
U.S. security assistance efforts, led by the State Department, in the 
Central African Republic (CAR). To date, DOD has supported the troop 
contributing countries to the U.N. Multidimensional Integrated 
Stabilization Mission in CAR (MINUSCA) by providing airlift, equipment, 
and the construction of U.N. base camps in-country, and will continue 
to provide support to the peacekeepers on a bilateral basis and to the 
U.N. where possible.

    Question. How will the nominee be further empowered as Ambassador 
and the post and his country team be resourced to address the 
significant deficiencies 
at post and those in the political environment identified during his 
confirmation hearing?

    Answer. We remain committed to expanding and normalizing operations 
following the resumption of the activities of Embassy Bangui in 
September 2014, despite operating in a challenging environment in the 
Central African Republic (CAR).
    This summer, we will increase the number of Embassy staff in order 
to expand our political, economic, development, and public diplomacy 
engagement in CAR. We intend to maintain and, when conditions permit, 
increase the number of temporary personnel, allowing the United States 
to address specific programmatic and operational priorities that 
broaden our overall engagement and ensure appropriate stewardship of 
U.S. resources.
    In addition, Embassy support staff will continue their efforts to 
improve management and information technology platforms, thus enabling 
staff to keep up with the increased workload.
    We are working to lease housing in addition to using existing U.S. 
Government-owned residences on and off the Embassy chancery compound, 
thereby lessening the burdens placed upon the Embassy's aging 
infrastructure and improving the overall quality of life for Embassy 
personnel.
    If confirmed, I will continue to make strides in normalizing our 
Embassy's operations, thus permitting us to continue the important work 
of helping the Central Africans find the peace, justice, and prosperity 
they richly deserve.

    Question. What is the U.S. Government position on the holding of an 
election in October 2015 in CAR?

    Answer. The United States, in line with the position of the 
international community, supports the efforts of the CAR authorities to 
hold the first round of Presidential and legislative elections in 
October 2015 or as soon as possible.
              ambassador-designate hawkins's responses to 
                    questions from senator menendez
    Question. As the Central African Republic looks toward national 
elections, many people in the country are continuing to face a 
humanitarian crisis. There are approximately 400,000 people displaced 
internally and another 420,000 Central Africans living as refugees in 
neighboring countries. The U.N. estimates that 2.7 million people 
throughout the Central African Republic, over half the country's 
population, are in need of humanitarian assistance. And while parts of 
the country have indeed stabilized, there are areas of CAR that remain 
violent and volatile.

  <diamond> In your estimation, what are the greatest challenges to a 
        coordinated international response to assisting displaced 
        populations? What can be done to ensure United Nations and 
        international organizations are meeting the continuing needs of 
        these populations?

    Answer. The greatest challenges to a coordinated international 
response to assist displaced populations in the Central African 
Republic (CAR) are insecurity, lack of basic state services, and 
funding.
    Ongoing insecurity and recent clashes in some areas of CAR continue 
to create new displacement and additional humanitarian needs while 
preventing people from returning to their homes and livelihoods. 
Targeted attacks against humanitarian agencies hinder access and 
provision of services to affected populations.
    Humanitarian agencies also face the daunting task of substituting 
for the state system in the provision of basic services, such as 
primary health care, education, and clean water. This stretches their 
limited resources as they try to meet the needs of all Central 
Africans, including the displaced, in areas where there is little state 
presence.
    Also, the U.N. strategic response plan to support some 2.7 million 
people in need of humanitarian aid in CAR remains only 32 percent 
funded. Consequently, humanitarian agencies must make difficult choices 
about their operations and the populations slated for assistance.
    The United States will continue our critical support and build upon 
the roughly $251 million in humanitarian aid we have provided in FY14 
and FY15 to date in order to ensure the United Nations and 
international organizations are meeting the needs of the CAR's people. 
Further, we will work closely with other donors and liaise directly 
with U.N. humanitarian agencies to ensure that support reaches 
those most in need, including internally displaced persons and 
refugees, and is not duplicative.

    Question. The Bangui Forum was widely praised by the international 
community for its inclusiveness. The forum brought together members of 
the transitional government, armed groups, and civil society to discuss 
the way forward on elections, disarmament of rebel groups, and the 
creation of justice and reconciliation mechanisms.

  <diamond> (a) What is the status of implementation of recommendations 
        from the Bangui Forum, such as disarmament of Seleka and anti-
        Balaka fighters, a constitutional revision process, and 
        mechanisms for reconciliation? What, in your view, are the key 
        challenges to implementation?

    Answer. (a) Following the conclusion of the May 2015 Bangui Forum, 
the transitional government established a followup committee to begin 
the process of implementing the Forum's recommendations. The naming of 
the committee members, however, has been subject to debate and 
revisions as some groups, including the primarily Muslim, ethnic Peulhs 
have complained they were not adequately represented on the committee. 
Consequently, there has been little progress in the implementation of 
the Forum's recommendations.
    The U.N. Multidimensional Integrated Stabilization Mission in CAR 
(MINUSCA) has developed a $10 million predisarmament, demobilization, 
reintegration, and repatriation (DDRR) program that intends to jump-
start the process of disarming former armed combatants. The program 
faces challenges as rebel leaders have proven reluctant to comply with 
the May 10 DDRR agreement because they are unsure of what long-term 
DDRR and security sector reform will look like. Donor support for DDRR 
remains insufficient. On a positive note, in May the international 
community successfully encouraged a group of ex-Seleka soldiers to 
vacate a camp in downtown Bangui, which allowed the removal of 
approximately 3 tons of explosives that had been in danger of 
spontaneous explosion.
    Discussions at the Bangui Forum helped inform an early July 
workshop of Central African Republic (CAR) experts and international 
observers on the constitution. The draft constitution will now move to 
the Transitional National Council, the interim Parliament, for 
consideration, after which the draft will be presented to voters at an 
October 4 referendum.
    The transitional CAR Government is considering several mechanisms 
for reconciliation including transitional justice measures, a Truth and 
Reconciliation Commission, and a Commission on Good Governance.
    The key implementation challenges of the Bangui Forum 
recommendations are the lack of financial resources and human capacity 
capable of organizing, leading, and carrying out programs that could 
convert recommendations to reality.

  <diamond> (b) How is the administration planning to support the 
        implementation of these recommendations?

    Answer. (b) In support of the Bangui Forum's recommendations, we 
are working with the United States Institute of Peace to develop a 
grant that will assist and work with the Bangui Forum followup 
committee. In addition, Embassy Bangui is closely monitoring the 
constitutional drafting process and, through the American Bar 
Association, is supporting the efforts of CAR's civil society to 
advocate for an inclusive and representative draft.

  <diamond> (c) The inclusion of civil society and community leaders is 
        absolutely essential to the success of these efforts. If 
        confirmed, what would you do to encourage the continued 
        consultation of civil society in the constitutional revision 
        process?

    Answer. (c) I witnessed, as Consul General in Lagos, Nigeria, 
during the recent Presidential elections, the importance of having 
civil society and community leaders engaged in political processes. If 
confirmed as Ambassador, I will work closely with all facets of CAR's 
civil society, through public diplomacy campaigns, training workshops, 
and informal dialogue, to ensure they are well informed and engaged in 
the political transition, including the constitutional revision 
process. I will further work with the CAR transitional authorities, 
including members of the transitional Parliament who lead the 
constitutional drafting process, to encourage a robust dialogue with 
the people of CAR about the democratic foundations upon which their 
country should be built.

    Question. How much in total funding has the United States provided 
to help reestablish rule of law in the Central African Republic in 
fiscal years 2014 and 2015, and what do we hope to achieve through the 
activities that we have funded? What has been accomplished to date? 
What plans are in place to assess progress in helping reestablish the 
criminal justice system? What assistance has been provided to the 
police, gendarmerie, and prosecutors? How do we plan to measure its 
effectiveness?

    Answer. In fiscal year (FY) 2014, the United States Government 
provided $15.6 million to help reestablish rule of law and criminal 
justice in the Central African Republic (CAR). In FY 2015, we intend to 
spend $10.2 million for these activities in the CAR.
    With this funding, we hope to assist the CAR Transitional 
Government reestablish law enforcement and criminal justice processes, 
thereby strengthening the rule of law in the country.
    With our assistance, the CAR Court of Appeals held its first 
criminal court session in more than 5 years. The court heard 78 cases, 
a figure that was 25 percent higher than anticipated. We have opened 
and staffed three legal aid centers in major towns for victims of 
sexual and gender-based violence (SGBV). With additional U.S. support, 
the American Bar Association-Rule of Law Initiative (ABA-ROLI) is 
working on several cases of SGBV victims and the United Nations 
Development Programme (UNDP) is working with the Ministry of Justice to 
deploy mobile courts to the provinces, and to develop rehabilitation 
plans for courts in provincial cities.
    In support of reestablishing the police and gendarme, we, in 
collaboration with UNDP, expect to hold a groundbreaking ceremony for 
the rehabilitation of several police and gendarmerie facilities in 
several weeks. We are also working with the U.N. Multidimensional 
Integrated Stabilization Mission to CAR (MINUSCA) to deliver critical 
equipment for the police, gendarmerie, and newly reconstituted civilian 
prison service.
    The capacity and level of operations of criminal justice 
institutions in CAR are extremely low, and some institutions, such as 
courts, barely function, which provides a clear baseline for measuring 
progress. As a result, basic output-related measurements such as the 
holding of a criminal court session, number of cases heard, opening of 
legal aid centers, number of SGBV cases being accepted, and 
rehabilitation and reopening of prisons and police and gendarmerie 
stations will continue to provide immediate, meaningful indicators on 
the progress in reestablishing criminal justice and rule of law.
    With our partners, we have established clearly defined output and 
outcome-related measurements to assess and monitor progress. With ABA-
ROLI, we have a monitoring and evaluation plan that has defined 
indicators, ranging from the number of bar association attorneys 
trained to the percentage increase in paralegals' knowledge of basic 
legal principles. With UNDP, we are expanding our monitoring and 
evaluation to better gather and analyze criminal and court data, 
conduct surveys, and track other information.
    Finally, the Bureau of International Narcotics and Law Enforcement 
(INL) sits on the steering committee that directs UNDP's work in CAR 
and is working to send additional staff to Bangui for on-site 
monitoring and oversight.

                               __________

 Responses of Daniel H. Rubinstein, Nominated to be Ambassador to the 
    Republic of Tunisia, to Questions from Members of the Committee

              ambassador-designate rubinstein's responses 
                    to questions from senator corker
    Question. What is the Chief of Mission's role in engaging the 
Tunisian American Enterprise Fund? How will you work with the Tunisian 
American Enterprise Fund to ensure that it is reaching its maximum 
investment potential? What are the challenges to the Tunisian American 
Enterprise Fund's success?

    Answer. The Tunisian-American Enterprise Fund (TAEF), seeded with 
$60 million in Economic Support Funds, has made an initial investment 
of $2.7 million in a Tunisian microcredit firm and hopes to invest 
approximately $7 million over the next several months in Tunisian Small 
and Medium Enterprises (SMEs). I expect TAEF to fully invest its funds 
and create growth in SMEs, venture capital opportunities, and in 
microfinance.
    The TAEF has had challenges navigating a difficult and complicated 
Tunisian financial regulatory system, but after creating innovative 
investment platforms, it is poised to make important investments in the 
Tunisian economy in the coming year. Hopefully, the Enterprise Fund 
activities will also bolster the Tunisian Government's reforms that 
directly bear on the Fund's activities, such as small business 
establishment and expansion.
    If confirmed, I will continue to closely monitor the Fund's 
progress, engage with its board of directors to advocate for additional 
progress, and ensure that the Fund is effectively working to promote 
sustainable and inclusive economic growth and employment in Tunisia.

                               __________


                              NOMINATIONS

                              ----------                              


                        TUESDAY, AUGUST 4, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Ann Calvaresi Barr, of Maryland, to be Inspector General, 
        United States Agency for International Development
David Malcolm Robinson, of Connecticut, to be an Assistant 
        Secretary of State (Conflict and Stabilization 
        Operations) and Coordinator for Reconstruction and 
        Stabilization
Edwin Richard Nolan, Jr., of Massachusetts, to be Ambassador to 
        the Republic of Suriname
John L. Estrada, of Florida, to be Ambassador to the Republic 
        of Trinidad and Tobago
Scott Allen, of Maryland, to be United States Director of the 
        European Bank for Reconstruction and Development
                              ----------                              

    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. David Perdue, 
presiding.
    Present: Senators Perdue and Kaine.

            OPENING STATEMENT OF HON. DAVID PERDUE, 
                   U.S. SENATOR FROM GEORGIA

    Senator Perdue. The Foreign Relations Committee will come 
to order.
    The hearing today is to consider nominations for five 
individuals to a wide range of posts. I look forward to 
discussing the wide ranges of challenges and opportunities that 
our nominees expect to face, if confirmed.
    I want to thank each of you for your dedication to public 
service, for your families, for the support you have. We 
welcome your families and friends who are present here today. I 
have met a few of them.
    Today, I would like to introduce our nominees. We will do 
that first, and then we will proceed to questions after a 
statement from the ranking member.
    First, we have Ms. Ann Calvaresi Barr of Maryland to be 
Inspector General, United States Agency for International 
Development.
    Welcome, Ms. Barr.
    Mr. David Malcolm Robinson of Connecticut, to be Assistant 
Secretary of State, Conflict and Stabilization Operations, and 
coordinator for Reconstruction and Stabilization.
    Mr. Edward Richard Nolan, Jr., of Massachusetts, to be 
Ambassador to the Republic of Suriname.
    John L. Estrada of Florida to be Ambassador to the Republic 
of Trinidad and Tobago.
    Mr. Scott Allen to be Director of the European Bank for 
Reconstruction and Development.
    Several of you have spent many years dedicated in service 
to our country already. For that, we are sincerely thankful. I 
look forward to hearing your testimony today, but I would like 
to add a personal note.
    I have made a couple trips outside of the United States. I 
have met many of your compatriots in the State Department. I 
can tell the people of America that the best of the best 
represent us abroad. I want to thank each of you and the people 
you represent for what you do.
    With that, I will turn it over to the ranking member, 
Senator Kaine.
    Senator Kaine.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chair. That was a gracious 
comment, and I am going to continue in that way.
    I think we have a bipartisan appreciation on this committee 
that the work that you do is very important, and that you do it 
under very difficult circumstances, and often did you do it 
without the understanding and, sadly, even the appreciation 
that we ought to extend to you.
    I think one of the lessons that America learned from the 
Vietnam era is whatever our political feelings about any 
particular military conflict, we should express our thanks and 
appreciation to those who serve in uniform. I think we have 
gotten better at that, and I thank God for that. But we have a 
whole lot of people who serve not in military uniform but still 
representing the United States, whether they be State 
Department or USAID or DEA agents who work overseas. We have a 
lot of folks who are kind of small-a ambassadors working 
overseas who represent the United States every day, often in 
dangerous places, and often sent to places that they did not 
choose, and often sent without their families, if the places 
are particularly dangerous.
    I have also, as member of this committee and the Armed 
Services Committee, in my travels have had a chance to interact 
with a lot of the folks that you are already working with and 
that you will be working with. You have fantastic colleagues. 
Those of you who are going to be Ambassadors have that care on 
your shoulder of protecting the safety of the public servants 
who work for you.
    I congratulate you for being nominated but also just tell 
you that my sense is the same as Senator Perdue's, that the 
people you will be working with are really top notch, and we 
owe you and them a great deal of thanks.
    Quickly, about the nominees, Ms. Barr, your experience at 
GAO and as Deputy Inspector General of the U.S. DOT will be 
very, very valuable, if you are confirmed in this position as 
the Inspector General of USAID. It is an important agency. We 
care deeply about the mission. The role of the IG is very 
important to the USAID being successful.
    Ambassador Robinson, as a Career Member of Foreign Service, 
your current tenure as the Principal Deputy High Representative 
of the International Community in Bosnia and Herzegovina and 
other roles will undoubtedly benefit you in the position you 
have been nominated for as Assistant Secretary of State for the 
Bureau of Conflict and Stabilization Operations.
    Mr. Allen, your 20 years of work in the financial sector 
will be a great match as you go to take on the task of an 
institution whose mission has probably gotten a little bit more 
complicated than it has been, the U.S. Director of the European 
Bank for Reconstruction and Development. We have been following 
the situation in Europe closely. I know you will have 
interesting insights for us on that.
    Mr. Nolan, you are also a career Foreign Service member. 
You currently serve as Minister of Political Affairs of the 
U.S. Embassy Ottawa and you previously served in The Hague. 
Thirty-four years of combined service will serve you well as 
the U.S. Ambassador in Suriname.
    And then, Mr. Estrada, I cannot resist, as a father of a 
Marine, to give you a shout-out for your strong service, 34 
years of service in the Marines and really the achievement of 
what has to be the top job in the Marine Corps, even over 
Commandant, Sergeant Major of the Marine Corps, the highest-
ranking enlisted Marine. What a wonderful track record. I know 
you will bring that to your position of the Ambassador of the 
Republic of Trinidad and Tobago.
    Everywhere I travel, I always stick my head in Post One at 
every Embassy to thank the Marine security guards who are 
trained at Quantico in Virginia. I know you have interacted 
with them, and they will be new family in this new role.
    So I appreciate your service. I applaud you for your 
nomination.
    And, Mr. Chair, I look forward to the questions.
    Senator Perdue. Thank you.
    Now we will open it up to questions, and I would like to 
give each of you--I am sorry, we will do testimony first. I 
jumped ahead. I am anxious to get to these questions.
    Senator Kaine. He is tough. He wants to get to the cross-
examination, so you guys better hunker down over there. 
[Laughter.]
    Senator Perdue. What I was going to do, though, actually, 
was give you the privilege of introducing your family and 
guests, each of you, and I will ask you to do that as you give 
your statement.
    Up first is our nominee to become the Inspector General of 
USAID, Ms. Calvaresi Barr. She is currently the Deputy 
Inspector General at the Department of Transportation.
    Ms. Calvaresi Barr.

  STATEMENT OF ANN CALVARESI BARR, NOMINATED TO BE INSPECTOR 
    GENERAL OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Calvaresi Barr. Thank you, Chairman Perdue and Ranking 
Member Kaine. It is a great honor to be here today as the 
President's nominee for Inspector General of the United States 
Agency for International Development. If confirmed, I look 
forward to working with you on important oversight and 
accountability matters related to U.S. foreign assistance.
    Before I begin, I would like to recognize my husband, 
David, who is in Iraq on a State Department detail; my 
daughter, Julianna, who completed her second year at Dickinson 
College and will soon begin a year of study in Italy; my 
mother, Julia; my late father, Anthony; my siblings, Kathleen, 
Dominic, and Anthony; my mother-in-law, nieces, nephews, and 
other members of my sizeable Italian family.
    Together, they have instilled in me strong ethical and 
moral values, and taught me that hard work, dedication, and 
humility are the foundation to building resilient relationships 
and mutual respect. As you can see, I am surrounded by much 
love and support.
    I have served in the government accountability community 
for more than 3 decades. My civil service career includes 25 
years at the Government Accountability Office and 6 years at 
the DOT's Office of Inspector General. GAO served as a critical 
training ground for me, and I had the privilege to work for 
many role models, including three outstanding Comptrollers 
General.
    During my time at GAO, I worked in multiple offices, 
including 5 years in GAO's former European Office, leading 
audits of large-scale, cross-cutting programs that resulted in 
improved operations and significant cost-savings across 
government.
    Particularly gratifying and fulfilling was work I performed 
while stationed overseas, work that concerned national security 
interests, international development efforts, and the state of 
human rights conditions in countries throughout Africa and the 
Middle East.
    My GAO experience prepared me well for working alongside 
DOT's Inspector General Calvin Scovel, whose exceptional 
leadership I respect very, very much, and I learned from, and 
is recognized across the OIG community.
    I must tell you, he surprised me today, and he is here with 
me. I could not be happier about that.
    Thank you, Cal.
    Within my first weeks as Assistant Inspector General for 
Audit and Evaluation, I led the development of a comprehensive 
strategy for mitigating risks in DOT's oversight of $48 billion 
in transportation projects funded under the Recovery Act. Our 
strategy enabled us to quickly identify and inform the 
department of vulnerabilities that required immediate attention 
or a sustained focus before funds were further obligated or 
expended.
    I also collaborated with senior managers to institute new 
policies and streamline procedures that enhanced product 
quality and accountability for issuing timely and relevant 
audit reports.
    After my first year at DOT, the inspector general selected 
me as his deputy. In this role, I identified opportunities for 
greater synergies among OIG's audit, investigation, and 
operational support activities, as well as programs to further 
develop and motivate staff. I also personally sponsored many 
initiatives aimed at broadening perspectives and encouraging 
greater coordination and partnering.
    Our returns on investment and employee survey scores 
demonstrate the success we have had in cultivating a skilled 
and high-performing workforce and in achieving results. Over 
the past 5 years, we averaged a return of $26 for every dollar 
appropriated and seen remarkable improvements in our Employee 
Viewpoint Survey scores.
    Of particular note, we ranked first in effective 
leadership, support for diversity, and innovation across the 
OIG community.
    If confirmed, I would approach this new responsibility with 
a clear understanding that foreign assistance is an integral 
part of U.S. engagement with an increasingly interdependent 
world, and that the success of AID's mission depends in large 
part on effective partnerships with the State, Defense, and 
other Federal entities, industry, foreign governments, 
international donors, and the academic and scientific 
communities.
    The independent work of USAID OIG is critical to ensuring 
transparency and accountability at USAID, as well as at the 
four other entities I would have oversight responsibility for.
    I would continue to model the highest standards of 
leadership. Effective leaders marshal rather than direct. And I 
welcome the opportunity to marshal the dedicated professionals 
at AID OIG.
    I would work to ensure they have the tools needed to combat 
fraud, waste, and abuse. Despite the many challenges these 
professionals face, they remain resolved to carry out their 
important audit and investigative mission around the globe. 
Nothing short of a work environment characterized by integrity 
is acceptable to support their dedication.
    AID reflects the good will of the American people, and 
while working in areas affected by poverty, conflict, and 
instability, I saw firsthand how effective foreign assistance 
programs can help transform lives and unlock human potential.
    I remain passionate about that cause and, to that end, to 
helping ensure that every dollar spent furthers foreign 
assistance goals.
    If confirmed, I look forward to working with Congress to 
address your areas of concerns; ensure transparency; and 
provide complete, timely, and accurate information on the 
progress of key foreign assistance priorities.
    Thank you very much for this opportunity to appear before 
you today. I am happy to answer any questions you may have.
    [The prepared statement of Ms. Calvaresi Barr follows:]

                Prepared Statement of Ann Calvaresi Barr

    Chairman Perdue, Ranking Member Kaine, and members of the 
committee, it is a great honor to sit before you today as the 
President's nominee for Inspector General of the U.S. Agency for 
International Development (USAID). I very much appreciate your 
consideration of my nomination, and if confirmed by the full Senate, I 
look forward to working with you on important oversight and 
accountability matters related to U.S. foreign assistance.
    I would first like to recognize my family, who are always there for 
me: my husband, David, who is currently in Iraq on a State Department 
detail; and my daughter, Julianna, who completed her second year in 
International Studies at Dickinson College and is beginning a year of 
study in Italy. I would also like to recognize my mother, Julia, and 
late father, Anthony; and my siblings, Kathleen, Dominic, and Anthony. 
Also with me, in person or in spirit, are my mother-in-law, Aldonna; 
nieces, nephews, and other members of my sizeable Italian family. 
Together, they have instilled in me strong ethical and moral values and 
taught me that hard work, dedication, and humility are the foundation 
to building resilient relationships and mutual respect. I would also 
like to recognize my mentors, colleagues, and friends for their 
inspiration, encouragement, and support--some of whom are also here 
today. As you can see, I am surrounded by much love and personally 
blessed as a result.
    It has been a privilege to serve in the government accountability 
community for more than three decades. My civil service career--which 
began in local government in my hometown of Reading, PA--includes 25 
years at the Government Accountability Office (GAO) and 6 years at the 
U.S. Department of Transportation (DOT) Office of Inspector General 
(OIG). As the premier Government agency that wrote the standards for 
auditing and accounting, GAO served as a critical training ground for 
me from the time I started as a graduate co-op to my entry into the 
Senior Executive Service. During my tenure, I had the privilege to work 
with three outstanding Comptrollers General, as well as many other 
leaders who served as role models to me.
    While at GAO, I led a number of complex and high-profile audits in 
multiple offices--including 5 years in GAO's former European Office in 
Frankfurt, Germany. These audits included assessments of large-scale, 
cross-cutting programs, and resulted in improved operations and 
significant cost savings across Government. Many of these audits 
focused on acquisition and procurement practices, financial and grant 
management, and export controls. I also worked closely with the 
Comptroller General to identify and develop key national indicators 
used by state, local, and foreign governments for gauging economic, 
social, cultural, and environmental health. This effort resulted in the 
development of a comprehensive system for assessing and improving the 
United States position in the world in these areas.
    Particularly gratifying and fulfilling was work I performed while 
stationed overseas, where I took part in improving and overseeing plans 
for implementing programs that provide aid. This work concerned 
international development efforts and the state of human rights 
conditions in Somalia, Turkey, Israel, and the former Yugoslavia and 
Zaire. I also worked on audits related to national security concerns, 
such as the drawdown of forces from Europe, the evacuation of 
noncombatants, and the deployment of female forces to the Persian Gulf.
    My GAO experience prepared me well for the next chapter of my 
Federal career--working alongside DOT's Inspector General, Calvin 
Scovel III, whose vision and exceptional leadership I learned from and 
are highly regarded throughout the OIG community. Within my first weeks 
as Principal Assistant Inspector General for Audit and Evaluation, I 
led the development of a comprehensive strategy for identifying and 
mitigating risks in DOT's oversight of $48 billion in transportation 
projects funded under the new American Recovery and Reinvestment Act. 
Our risk mitigation strategy enabled us to quickly identify and inform 
the Department of vulnerabilities that required immediate action or a 
sustained focus before funds were further obligated or expended. We 
subsequently adopted this approach for our surface transportation 
reauthorization and Hurricane Sandy relief audits.
    During this time, I developed a vision for the Office of Audits 
and, in collaboration with senior managers, devised a strategic plan 
for the office with achievable goals, objectives, and performance 
measures. Ultimately, our aim was to enhance product quality and stress 
accountability for issuing timely and relevant reports. To get there, I 
worked with senior managers to streamline processes and institute new 
programs, policies, tools, and procedures.
    After my first year at DOT, the inspector general selected me as 
his deputy, expanding the scope of my responsibilities to include 
providing leadership and direction for OIG's investigation and 
operational support activities. From this position, I was able to fully 
appreciate each office's distinct focus and outlook, as well as the 
need for greater synergies to fully develop and leverage our resources. 
Continual dedication to developing and motivating staff was critical to 
achieving these goals. I personally sponsored Communities of Practice, 
a forum where staff share knowledge to broaden perspectives and 
encourage greater coordination and partnering. I also established and 
participate in an OIG-wide mentoring program, monthly leadership brown 
bags for managers and line staff, an Adjunct Faculty Training Program, 
a Job Shadow Program, and an external Speakers Series.
    Our returns on investment and positive employee survey scores 
demonstrate the success we have had in cultivating a skilled workforce 
and high-performing teams, building coalitions, branding the 
organization, and in achieving results. Over the past 5 years, our 
return on investment has averaged $26 for every dollar spent on our 
office, with a high in fiscal year 2013 of $41 for every appropriated 
dollar. During this time, we made over $8.5 billion in financial 
recommendations through our audits, and realized more than $1.8 billion 
in fines, restitutions, and recoveries from our investigations. We have 
also seen remarkable improvements in our Employee Viewpoint Survey 
scores. I am proud to report that last year, DOT's OIG ranked in the 
top 15 percent among the Government's 314 subcomponents. Among the 
Department's subcomponents and across the OIG community, we ranked 
first in effective leadership, support for diversity, and innovation. 
Moreover, we ranked in the top 10 among all 314 subcomponents in those 
three categories as well as work-life balance.
    If confirmed as USAID's inspector general, I would approach this 
new responsibility with a clear understanding that foreign assistance 
is an integral part of U.S. engagement with an increasingly 
interdependent world, and that the success of USAID's mission depends 
in large part on effective partnerships and coordination with the State 
Department, Department of Defense, and other Federal entities, as well 
as with industry, foreign governments, other international donors, and 
the academic and scientific communities. The independent work of USAID 
OIG is critical to ensuring transparency, integrity, and accountability 
at USAID, the Millennium Challenge Corporation, U.S. African 
Development Foundation, Inter-American Foundation, and Overseas Private 
Investment Corporation. It is equally important that OIG systems and 
processes thoroughly reflect oversight community standards and best 
practices.
    If I have the honor and privilege of serving as USAID's next 
inspector general, I would continue to model the highest standards of 
leadership and integrity. My experience has taught me that the most 
effective leaders, past and present, share at least one common trait--
they marshal rather than direct. I welcome the opportunity to marshal 
the workforce of committed professionals at USAID OIG. With shared 
vision, clear expectations, strategic planning, and stewardship of 
resources, I would work to ensure they have the tools needed to fully 
engage in identifying and responding to major management challenges and 
to combat program fraud, waste, and abuse. Despite the many challenges 
these professionals face, they remain resolved to carry out their 
important mission--that is, to promote efficiency, effectiveness, and 
integrity in foreign assistance programs and operations around the 
world. Nothing short of a highly motivating, positive, trusting, and 
productive work environment is acceptable to support their dedication.
    Aid reflects the good will of the American people, and during my 
time working throughout Europe, Africa, and the Middle East, I saw 
firsthand how effectively implemented foreign assistance programs can 
help transform lives and unlock human potential. I remain passionate 
about the cause and, to that end, to helping ensure that every dollar 
spent furthers foreign assistance goals.
    If confirmed as Inspector General, I look forward to continuing my 
Government service at USAID and to working with Congress to address 
your concerns; ensure transparency; and provide complete, timely, and 
accurate information on the progress of key foreign assistance 
priorities.
    Thank you for this opportunity to appear before you today. I am 
happy to answer any questions you may have.

    Senator Perdue. Thank you very much.
    Ambassador Robinson currently serves as Principal Deputy 
High Representative at Sarajevo, Bosnia and Herzegovina. He is 
nominated to serve as Assistant Secretary of State for Conflict 
and Stabilization Operations, and coordinator for 
Reconstruction and Stabilization.
    It sounds like four jobs to me, Mr. Ambassador.
    Ambassador Robinson.

    STATEMENT OF DAVID MALCOLM ROBINSON, NOMINATED TO BE AN 
   ASSISTANT SECRETARY OF STATE (CONFLICT AND STABILIZATION 
      OPERATIONS) AND COORDINATOR FOR RECONSTRUCTION AND 
                         STABILIZATION

    Ambassador Robinson. Thank you, Mr. Chairman and Ranking 
Member Kaine. It is an honor to be here today.
    I first want to thank the President, the Secretary of 
State, and Under Secretary Sewall for the confidence they have 
placed in me. I look forward, if confirmed, to working with you 
and other members of this committee to advance the difficult 
but essential work of the Bureau of Conflict and Stabilization 
Operations.
    But before I say anything else, I want to recognize and 
thank my wife, Donna, who is here today. She has been the rock 
of stability and grace in an otherwise hectic Foreign Service 
life.
    So thank you, Donna.
    Senators, I have spent much of my 30 years as a Foreign 
Service officer, nearly half of those as a member of the Senior 
Foreign Service, in conflict zones or in other unstable 
environments, from Afghanistan, Bosnia, and Central America, to 
regions of Africa and Asia that have been scarred by war. I 
know intimately the civilian costs of violent conflict, and I 
have worked extensively with other actors in the international 
arena to try to address those costs.
    Unfortunately, the cost in ruined lives and political 
instability continues to grow. The number of refugees and 
internally displaced persons worldwide is now nearly 60 
million, more than at any other time since World War II, and no 
corner of the globe is immune, even in areas in which the roots 
of representative civilian governance are beginning to take 
root. Some 30 countries in Africa will have elections in the 
next 2\1/2\ years. Those expressions of democratic practice 
must be protected against efforts to undermine or delegitimize 
them through violent conflict.
    Repeating cycles of conflict sap our diplomatic, military, 
and development resources. There is no simple solution, 
including, as the President and the Secretary of State recently 
noted, a purely military response.
    Instead, we have to use all the tools at our disposal, 
including civilian, to anticipate, prevent, or limit conflict, 
whenever and wherever we can. A focus on prevention is not only 
cost effective, it also gives us a chance to find lasting 
political and social responses to these challenges, because 
there is a chance to break the cycles of violence.
    Three and a half years ago, CSO was created to give the 
Secretary, the Department of State, and, most importantly, our 
diplomatic missions overseas the information and tools they 
need to more effectively address the threat of violent 
conflict. There have been notable successes. For example, CSO 
is supporting interagency efforts to stem the tide of al-
Shabaab in the Horn of Africa and Boko Haram in the Lake Chad 
Basin. It has helped prevent violence around elections in 
Kenya, Nigeria, and Bangladesh. And it has strengthened 
civilian security in some of the most dangerous parts of 
Central America.
    At the same time, I know well that CSO's mission and 
methodology have not always been clear and consistent. I read 
last year's hard-hitting inspector general report, and I take 
it seriously, as does the current leadership of CSO. Most of 
the recommendations already have been closed, and the few 
remaining are well on their way to successful conclusion. These 
changes reflect a maturing culture within the Bureau, and I 
welcome the chance to make them lasting and to better integrate 
the Bureau within the broader work of the Department.
    CSO has a talented and dedicated staff. What it needs now 
is seasoned leadership. If confirmed, I will work to make sure 
the Secretary and our diplomatic missions have reliable tools 
based on solid analysis and lessons learned to anticipate, 
prevent, and respond to conflict, especially the worst forms of 
conflict directed at civilians: mass atrocities and violent 
extremism.
    I will work to ensure the accountability and effectiveness 
of our efforts through robust monitoring and evaluation and a 
sound management controls program. And I will strengthen our 
partnerships within the Department, the interagency community, 
and among our allies.
    Finally, if confirmed, I assure you I will lead a Bureau 
that measurably strengthens American diplomacy in this critical 
arena.
    I welcome your questions. Thank you.
    [The prepared statement of Ambassador Robinson follows:]

           Prepared Statement of Ambassador David M. Robinson

    Thank you Mr. Chairman, Ranking Member Cardin, and distinguished 
members of the committee. It is an honor to be here today as the 
nominee for Assistant Secretary for the Bureau of Conflict and 
Stabilization Operations. I am grateful for the confidence President 
Obama, Secretary Kerry, and Under Secretary Sewall have placed in me. 
If confirmed, I look forward to working with you and other members of 
the committee to advance the difficult work of preventing and 
responding to violent conflict.
    I have spent much of my 30 years as a Foreign Service officer, 
almost half as a member of the Senior Foreign Service, in conflict 
zones and unstable environments, from Afghanistan, Bosnia, and Central 
America, to other regions of Asia and Africa scarred by war and 
persecution. I know intimately the civilian costs of violent conflict, 
atrocity, and extremism, and I have worked extensively with other 
actors in the international community to overcome them.
    Unfortunately, the cost in ruined lives and political instability 
continues to grow. The number of refugees and internally displaced 
persons worldwide is now nearly 60 million, more than at any time since 
World War II, and no corner of the world is immune. Even where 
representative civilian governance is taking root--some 30 African 
countries will have elections over the next 2\1/2\ years--those 
exercises in democracy must be protected against threats to violently 
undermine or delegitimize them.
    Conflict carries other costs, as well, sapping our diplomatic, 
military and development resources. There is no simple solution, 
including, as the President and the Secretary of State recently noted, 
a purely military response. Instead, we have to use all the tools at 
our disposal, including civilian ones, to anticipate and prevent 
conflict, wherever and whenever we can. A focus on prevention is not 
only more cost effective; it also gives us the space to find effective, 
lasting political and social responses to these challenges.
    Three and a half years ago, CSO was created to enhance the State 
Department's ability to prevent and respond to conflict, giving the 
Secretary of State, regional Assistant Secretaries and our Ambassadors 
the information and tools they need to more effectively understand and 
respond to the threat of violent conflict. There have been notable 
successes. CSO's talented and dedicated staff, for example, is 
supporting interagency efforts to stem the tide of al-Shabaab in the 
Horn of Africa and Boko Haram in the Lake Chad Basin. They have helped 
prevent violence around elections in Kenya, Nigeria, and Bangladesh. 
And they have strengthened civilian security in some of the most 
dangerous parts of Central America.
    At the same time, I know well that CSO's mission and methodology 
have not always been clear and consistent. I read last year's hard-
hitting inspector general report. Most of the recommendations have 
already been closed, and the few remaining are well on their way to 
successful conclusion. These changes reflect a maturing culture within 
the Bureau. I welcome the chance to make them enduring and to better 
integrate the Bureau within the work of the Department.
    What CSO needs now is seasoned leadership. If confirmed, my 
priorities will be:

  <diamond> To ensure the Secretary and our embassies have reliable 
        tools based on solid analysis and lessons learned to 
        anticipate, prevent, and respond to conflict, especially the 
        most severe forms of conflict affecting civilians, such as 
        atrocities and violent extremism.
  <diamond> To assure accountability and effectiveness of our efforts 
        through robust monitoring and evaluation and sound management 
        controls.
  <diamond> To serve as an active resource for and active partner with 
        the Department and with our interagency and international 
        counterparts in tackling these challenges.

    Finally, if confirmed, I assure you I will lead a Bureau that 
strengthens American diplomacy where it is needed most, where conflict 
and extremism undermine United States interests and values.
    Thank you, again, Mr. Chairman, for the opportunity to appear 
before you today. I am happy to answer any questions.

    Senator Perdue. Thank you, Ambassador.
    Next we have Mr. Nolan, who is nominated to serve as 
Ambassador to Suriname. Mr. Nolan currently serves as Minister 
Counselor for Political Affairs at the U.S. Embassy in Ottawa.
    Mr. Nolan.

    STATEMENT OF EDWIN RICHARD NOLAN, JR., NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF SURINAME

    Mr. Nolan. Thank you, Mr. Chairman and Ranking Member 
Kaine. I appreciate this opportunity to appear before you 
today.
    I am honored to be President Obama's nominee to serve as 
the United States Ambassador to the Republic of Suriname. I 
thank the President for the confidence he has placed in me by 
putting me forward to the Senate for consideration, and I thank 
Secretary Kerry for his trust and support.
    I have had the honor to serve our country for 35 years as a 
Foreign Service officer. Every day of those 35 years, I have 
had the love and support of my wife, Tricia, who I would like 
to introduce to the committee, along with my children, Ryan and 
Katie, of whom I am immensely proud. I would not be here today 
without my wonderful family.
    During those 35 years, I have had the opportunity to 
contribute to some historic successes in U.S. foreign policy. 
Among them were the first conventional arms control agreements 
with the Soviet Union in the 1980s, the successful integration 
of the Warsaw Pact members into NATO in the 1990s, and the 
indispensable U.S. efforts to bring lasting peace to Northern 
Ireland through the implementation of the Good Friday 
Agreement.
    I have also had the opportunity to lead large, multiagency 
missions, as Deputy Chief of Mission in both Cyprus and the 
Netherlands, and then later as Charge d'Affaires at Mission 
Netherlands from 2011 to 2013. I also gained experience on many 
Caribbean regional issues in that time as a result of the 
Netherlands' continued engagement with its Caribbean 
territories and its historic relationship with Suriname.
    If confirmed, I believe my leadership and policy experience 
will serve our mission and our team in Suriname well. If 
confirmed, I will proudly represent the United States in 
Suriname, a country whose people are among the most ethnically 
and religiously diverse in the world. Its citizens of African, 
Asian, European, and indigenous descent, practicing 
Christianity, Hinduism, Islam, Judaism, and indigenous 
religions, live peacefully and productively together.
    As someone who has worked to build understanding between 
diverse religious and ethnic communities, from Protestants and 
Catholics in Ireland to Turkish and Greek Cypriots in Cyprus, I 
look forward to engaging with Suriname's communities to learn 
how they might be able to share their experiences with others 
in the region and around the world.
    If confirmed, I will also work with the Surinamese 
Government to promote the adoption of policies to increase U.S. 
trade and investment. Increased trade has the potential to 
drive progress and growth in Suriname, and it is in the 
interests of both of our economies.
    We will work with Suriname to find solutions that tap into, 
as well as conserve, the country's extensive natural resources. 
The people of Suriname also are heirs to a vast rainforest and 
other natural areas that are contributing great economic and 
environmental benefits to Suriname and to the world.
    The Obama administration's efforts to combat the dangers 
posed by pollution and the risks of climate change are tied to 
the conservation and health of such ecosystems. If confirmed, I 
will work hard with the Surinamese to help protect these 
critical natural resources and environment, a goal that I 
firmly believe is in the interests of both the United States 
and the people of Suriname.
    It is also in our interest to strengthen the rule of law in 
Suriname. In parliamentary elections this past May, President 
Desire Bouterse's party won a slim majority, and he has been 
reelected to a second 5-year term. International observers 
found this election to be generally free and fair.
    We remain concerned, however, about some aspects of 
democratic governance, corruption, and judicial independence. 
If I am granted the opportunity to serve, I will continue the 
efforts of my predecessor to press the Government of Suriname 
for an independent judiciary capable of protecting and 
advancing democracy and the rule of law.
    Citizen security is another key goal of this administration 
in the region. The people of Suriname are benefiting from U.S.-
sponsored programs, such as the Caribbean Basin Security 
Initiative, through providing technical training to law 
enforcement officers, combating money-laundering and financial 
crimes, and preparing at-risk youth for successful and crime-
free lives. If confirmed, I will seek to gain an increased 
commitment from the Government of Suriname to this partnership.
    Of course, my first priority would be protecting the safety 
and welfare of Americans in Suriname, both private citizens and 
the Embassy community. To ensure the safety and security of our 
staff in Suriname, we are building a new Embassy compound in 
Paramaribo and plan to move in next summer. I will work with 
the Government of Suriname, along with local police and other 
security services, to reinforce cooperation that will keep 
Americans secure.
    If confirmed, I look forward to representing the United 
States in Suriname, working with you and your colleagues in 
Congress on behalf of the administration, while also engaging 
Suriname in a regular and respectful dialogue on broad 
international issues to exchange views and, where possible, 
identify means of mutual interest and agreement.
    Mr. Chairman, I stand ready to answer any questions you 
might have. Thank you.
    [The prepared statement of Mr. Nolan follows:]

             Prepared Statement of Edwin Richard Nolan, Jr.

    Mister Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am honored to be President 
Obama's nominee to serve as the United States Ambassador to the 
Republic of Suriname. I thank the President for the confidence he has 
placed in me by putting me forward to the Senate for consideration, and 
I thank Secretary Kerry for his trust and support.
    I have had the honor to serve our country for 35 years as a Foreign 
Service officer. Every day of those 35 years I have had the love and 
support of my wife, Tricia, who I'd like to introduce to the committee 
along with my children, Ryan and Katie, of whom I am immensely proud. I 
would not be where I am today without my wonderful family.
    During those 35 years I have had the opportunity to contribute to 
some historic successes in U.S. foreign policy. Among them: the first 
conventional arms control agreements with the then-Soviet Union in the 
1980s; the successful integration of the former Warsaw Pact members 
into NATO in the 1990s; and indispensable U.S. efforts to bring lasting 
peace to Northern Ireland through the implementation of the Good Friday 
Agreement. I have also had the opportunity to lead large, multiagency 
missions, as Deputy Chief of Mission in both Cyprus and the 
Netherlands, and then later, as Charge d'Affaires at Mission 
Netherlands from 2011 to 2013. I also gained experience on many 
Caribbean regional issues in that time as a result of the Netherlands' 
continued engagement with its Caribbean territories and its historic 
relationship with Suriname. If confirmed, I believe my leadership and 
policy experience will serve our mission and our team in Suriname well.
    If confirmed, I will proudly represent the United States in 
Suriname--a country whose people are among the most ethnically and 
religiously diverse in the world. Its citizens of African, Asian, 
European and indigenous descent, practicing Christianity, Hinduism, 
Islam, Judaism, and indigenous religions, live peacefully and 
productively together. As someone who has worked to build understanding 
between diverse religious and ethnic communities, from Protestants and 
Catholics in Ireland to Turkish and Greek Cypriots in Cyprus, I look 
forward to engaging with Suriname's communities and learning how 
Suriname might be able to share its experiences with others in the 
region and around the world.
    If confirmed, I will also work with the Surinamese Government to 
promote the adoption of policies to increase American trade and 
investment between our two countries. Increased trade has the potential 
to drive progress and growth in Suriname, and it is in both of our 
interests to increase economic ties.
    We will work with Suriname to find solutions that tap into, as well 
as conserve, the country's extensive natural resources. The people of 
Suriname also are heirs to a vast rain forest and other natural areas 
that are contributing great economic and environmental benefits to 
Suriname and to the world. The Obama administration's efforts to combat 
the dangers posed by pollution and the risks of climate change are tied 
to the conservation and health of such ecosystems. If confirmed, I will 
work hard with the Surinamese to help protect these critical natural 
resources and environment--a goal that I firmly believe is in the 
interest of both the United States and of the people of Suriname.
    It is also in our interest to strengthen the rule of law in 
Suriname. In parliamentary elections this past May, President Desire 
Bouterse's party won a slim majority, and he has been reelected to a 
second 5-year term. International observers found this election to be 
generally free and fair. We remain concerned, however, about some 
aspects of democratic governance, corruption, and judicial 
independence. If I am granted the opportunity to serve, I will continue 
the efforts of my predecessor to press the Government of Suriname for 
an independent judiciary capable of protecting and advancing democracy 
and the rule of law in Suriname.
    Citizen security is another key goal of this administration in the 
region. The people of Suriname are benefiting greatly from bilateral 
and regional assistance under U.S.-sponsored programs such as the 
Caribbean Basin Security Initiative (CBSI)--through providing technical 
training to law enforcement officers, combating money-laundering and 
financial crimes, and preparing at-risk youth to live successful and 
crime-free lives. If confirmed, I will seek to gain an increased 
commitment from the Government of Suriname to this partnership.
    Of course, my first priority would be protecting the safety and 
welfare of Americans in Suriname--both private citizens and the Embassy 
community. To ensure the safety and security of our staff working in 
Suriname, we are building a New Embassy Compound in Paramaribo and plan 
to move in next summer. I will work with the Government of Suriname, 
along with local police and other security services, to reinforce 
cooperation that will keep Americans secure.
    If confirmed, I look forward to representing the United States in 
Suriname, working with you and your colleagues in Congress on behalf of 
the administration, while also engaging Suriname in a regular and 
respectful dialogue on broad international issues to exchange views 
and, where possible, identify areas of mutual interest and agreement.
    Mr. Chairman, I stand ready to answer any questions you might have. 
Thank you.

    Senator Perdue. Mr. Nolan, thank you.
    Next, we have Mr. John Estrada. Mr. Estrada is nominated 
for Ambassador to Trinidad and Tobago. He currently serves as 
senior manager and senior program project manager at Lockheed 
Martin.
    Mr. Estrada.

STATEMENT OF JOHN L. ESTRADA, NOMINATED TO BE AMBASSADOR TO THE 
                REPUBLIC OF TRINIDAD AND TOBAGO

    Mr. Estrada. Thank you, Mr. Chairman and Ranking Member 
Kaine. Good afternoon. It is an honor to appear before you 
today.
    I want to express my gratitude to President Obama and 
Secretary Kerry for the trust and confidence they have placed 
in me through their renomination of me to represent my country 
as the next Ambassador to the Republic of Trinidad and Tobago. 
I am particularly thrilled at the prospect of representing the 
United States, if confirmed, in the country of my birth.
    I was born in Trinidad and Tobago, and at the age of 14, I 
immigrated to the United States to forge a new life. I brought 
with me a respect for diversity and an inherent sense of the 
equal value of all people. I served with honor in the U.S. 
Marine Corps, attaining the corps' highest enlisted rank as the 
15th Sergeant Major in the history of the Marine Corps.
    After retiring from the Marine Corps, I continued serving 
my country as a Presidential appointed commission member of the 
American Battle Monuments Commission and as a committee member 
on the Defense Advisory Committee for Women in the Services.
    In the private sector, I led Lockheed Martin Training 
Solutions, Inc., a wholly owned subsidiary company specializing 
in flight training and logistics solutions.
    I firmly believe that one of the greatest aspirations of 
all free people is to live their lives to the fullest without 
limitations based on their ethnicity, class, race, gender, or 
sexual orientation. If confirmed as Ambassador, with that ideal 
as my guide, I would seek to strengthen the ties between the 
citizens and elected representatives of our two great nations.
    Trinidad and Tobago is an important Caribbean partner of 
the United States. The relationships between our countries rest 
on a strong foundation. We share a common language and a firm 
commitment to democratic principles, the rule of law, and a 
free market system.
    The United States mission to Trinidad and Tobago has three 
strategic objectives.
    On security, the mission first works to protect American 
citizens in Trinidad and Tobago. Related to the security of 
Americans, the Embassy works with the Government of Trinidad 
and Tobago to improve the capacity of Trinidadian law 
enforcement and justice sector institutions to reduce violent 
crime and illicit trafficking, safeguard human rights, and 
create safer communities.
    Second, the mission promotes increased commerce and 
transparent investment climates to enhance our mutual 
prosperity.
    Third, on social inclusion, the mission conducts extensive 
outreach and encourages regional leadership by Trinidad and 
Tobago to protect vulnerable populations, including at-risk 
youth.
    If confirmed, I look forward to leading our efforts in 
these crucial areas.
    The United States and Caribbean partners have developed the 
Caribbean Basin Security Initiative, an ongoing, multifaceted 
citizen security initiative for the Caribbean, of which 
Trinidad and Tobago is a key player. In creating the Caribbean 
Basin Security Initiative, the United States and Caribbean 
partners are attempting to combat the drug trade and other 
transnational crimes that threaten regional security with the 
goal of substantially reducing illicit trafficking, increasing 
public safety, strengthening the rule of law, and addressing 
the underlying social and economic root causes of crime.
    I will do my utmost, if confirmed, to increase cooperation 
and encourage Trinidad and Tobago to take more of a leadership 
role in security in the Caribbean, where it has much to offer 
its neighbors.
    As a resource-rich country, Trinidad and Tobago is full of 
opportunity for energy companies. The United States works 
cooperatively with Trinidad and Tobago, both bilaterally and 
through the Caribbean Energy Security Initiative, to develop 
new avenues for regional energy security and conservation.
    I am excited Trinidad and Tobago is playing a growing role 
in regional integration and promoting business relationships in 
the hemisphere. If confirmed, I would advocate on behalf of 
U.S. companies and commercial interests to ensure a level 
playing field and support their engagements with Trinidad and 
Tobago.
    Education is the foundation for economic growth. If 
confirmed, I will work with the Government of Trinidad and 
Tobago to explore ways in which we can provide at-risk youth 
and other vulnerable populations with tools that can help them 
succeed.
    I firmly believe that my 34 years of Active Duty service in 
the United States Marine Corps and my experience in the private 
sector, coupled with my personal history, have prepared me to 
represent the Government and people of the United States to the 
Government and people of Trinidad and Tobago.
    If confirmed, it would be my great honor to work closely 
with this committee and others in Congress to advance our 
shared objectives in the Caribbean.
    Thank you for allowing me the opportunity to appear before 
this distinguished committee. I look forward to answering your 
questions.
    [The prepared statement of Mr. Estrada follows:]

               Prepared Statement by John Learie Estrada

    Mr. Chairman and distinguished members of this committee, good 
afternoon. It is an honor to appear before you today. I want to express 
my gratitude to President Obama and Secretary Kerry for the trust and 
confidence they have placed in me through their renomination of me to 
represent my country as the next Ambassador to the Republic of Trinidad 
and Tobago.
    I am particularly thrilled at the prospect of representing the 
United States, if confirmed, in the country of my birth. I was born in 
Trinidad and Tobago and, at age 14, I immigrated to the United States 
to forge a new life. I brought with me a respect for diversity and an 
inherent sense of the equal value of all people. I served with honor in 
the U.S. Marine Corps--attaining the corps' highest enlisted rank as 
the 15th Sergeant Major of the Marine Corps. After retiring from the 
Marine Corps, I continued serving my country as a Presidential-
appointed Commission member of the American Battle Monuments Commission 
and as a committee member on the Defense Advisory Committee for Women 
in the Services. In the private sector, I led Lockheed Martin Training 
Solutions, Inc., a wholly owned subsidiary company specializing in 
flight training and logistics solutions.
    I firmly believe that one of the greatest aspirations of all free 
people is to live their lives to the fullest without limitations based 
on their ethnicity, class, race, gender, or sexual orientation. If 
confirmed as Ambassador, with that ideal as my guide, I would seek to 
strengthen the ties between the citizens and elected representatives of 
our two great nations.
    Trinidad and Tobago is an important Caribbean partner of the United 
States. The relationship between our countries rests on a strong 
foundation. We share a common language and a firm commitment to 
democratic principles, the rule of law, and a free market system.
    The U.S. mission to Trinidad and Tobago has three strategic 
objectives: On security, the mission first works to protect American 
citizens in Trinidad and Tobago. Related to the security of Americans, 
the Embassy works with the Government of Trinidad and Tobago to improve 
the capacity of Trinidadian law enforcement and justice sector 
institutions to reduce violent crime and illicit trafficking, safeguard 
human rights, and create safer communities. Second, the mission 
promotes increased commerce and a transparent investment climate to 
enhance our mutual prosperity. Third, on social inclusion, the mission 
conducts extensive outreach and encourages regional leadership by 
Trinidad and Tobago to protect vulnerable populations, including at-
risk youth. If confirmed, I look forward to leading our efforts in 
these crucial areas.
    The United States and Caribbean partners have developed the 
Caribbean Basin Security Initiative (CBSI), an ongoing, multifaceted 
citizen security initiative for the Caribbean, of which Trinidad and 
Tobago is a key player. In creating CBSI, the United States and 
Caribbean partners, we are attempting to combat the drug trade and 
other transnational crimes that threaten regional security with the 
goal of substantially reducing illicit trafficking, increasing public 
safety, strengthening the rule of law, and addressing the underlying, 
social and economic root causes of crime. I will do my utmost, if 
confirmed, to increase cooperation and encourage Trinidad and Tobago to 
take more of a leadership role in security in the Caribbean, where it 
has much to offer its neighbors.
    As a resource-rich country, Trinidad and Tobago is full of 
opportunity for energy companies. The United States works cooperatively 
with Trinidad and Tobago, both bilaterally and through the Caribbean 
Energy Security Initiative, to develop new avenues for regional energy 
security and conservation. I am excited Trinidad and Tobago is playing 
a growing role in regional integration and promoting business 
relationships in the hemisphere. If confirmed, I would advocate on 
behalf of U.S. companies and commercial interests to assure a level 
playing field and support their engagement with Trinidad and Tobago.
    Education is the foundation for economic growth. If confirmed, I 
will work with the Government of Trinidad and Tobago to explore ways in 
which we can provide at-risk youth and other vulnerable populations 
with tools that can help them succeed.
    I firmly believe that my service in the Marine Corps and my 
experience in the private sector, coupled with my personal history, 
have prepared me to represent the government and people of the United 
States to the government and people of Trinidad and Tobago.
    If confirmed, it would be my great honor to work closely with this 
committee and others in Congress to advance our shared objectives in 
the Caribbean.
    Thank you for allowing me the opportunity to appear before this 
distinguished committee. I look forward to answering your questions

    Senator Perdue. Mr. Estrada, thank you very much.
    Finally, we have Mr. Allen, who is currently a private 
investor and philanthropist. He is nominated to serve as the 
U.S. executive director for the European Bank for 
Reconstruction and Development.
    Mr. Allen.

STATEMENT OF SCOTT ALLEN, NOMINATED TO BE U.S. DIRECTOR OF THE 
        EUROPEAN BANK FOR RECONSTRUCTION AND DEVELOPMENT

    Mr. Allen. Thank you, Chairman Perdue and Ranking Member 
Kaine. I am grateful for the opportunity to appear before you 
today.
    I am honored that President Obama has nominated me to serve 
as the U.S. executive director for the European Bank for 
Reconstruction and Development.
    I would like to take this opportunity to introduce my 
family members that are here today.
    Bette Allen, my mother, who is 91 years old, who is 
becoming a regular at confirmation hearings, as she attended 
the hearing for my brother, Craig Allen, who was confirmed by 
this committee to serve as Ambassador to Brunei in July 2014.
    My wife, Kanako, who has devoted her career to working on 
economic development issues, first at the United Nations and 
currently at the World Bank. She is my rock.
    Finally, our two daughters, Lisa, who has just returned 
from a couple of years in Kyoto, Japan; and Sara, who works in 
finance in New York.
    I come from a very close family with a history of 
government service. My sister, Sara Bowden, and her husband, 
Dennis Bowden, are also here today. During the Reagan 
administration, Sara worked at the White House Office of 
Science and Technology Policy. Dennis spent nearly 30 years at 
the CIA.
    And prior to his confirmation to serve as the Ambassador to 
Brunei, my brother, Craig Allen, spent a long career working at 
the Department of Commerce.
    Over the course of a 22-year career in investment banking, 
I became a specialist in emerging markets and credit. In the 
early 1980s, I was part of a small team of bankers focused on 
the sovereign rescheduling of commercial bank debt. My primary 
country of focus was the Philippines, but I also worked on 
distressed sovereigns in Latin America as well as Eastern 
Europe, specifically Yugoslavia.
    Through this work, I came to appreciate the tradeoffs 
between balancing lenders' need to protect loan assets with the 
sovereign nations' desires to reduce pressure from debt service 
payments so that economic growth could improve their citizens' 
livelihoods and increase repayment probabilities.
    Thirty years later, the players have changed, but many of 
the same dynamics continue to play out in Europe.
    I arrived in London in 1992 to lead Chemical Bank's 
emerging markets business. Just a couple of years earlier, 
during President George H.W. Bush's administration, the EBRD 
had been established, with the United States contributing 10 
percent of the capital, the largest single country stake.
    The founding vision of the EBRD remains sound: fostering 
the economic vitality of the private sector through debt and 
equity capital to help countries effectively transition to 
market-oriented, pluralistic, and democratic societies. At the 
time, the context was a post-Soviet era. EBRD's client 
countries were Eastern European countries that had just thrown 
off the yoke of communism.
    The EBRD today has new challenges. The EBRD has taken its 
founding vision into select countries in Northern Africa, 
Turkey, and Jordan with the same conviction that the 
development of an economically vibrant private sector will 
foster a political transition to democracy in these new client 
countries. At the same time, it is working to complete the 
transition of several more advanced Eastern European countries 
by aiming to reduce investments in these countries while 
recognizing that there is still a role for the EBRD, given the 
effects of European economic turmoil and the Russian aggression 
in Ukraine.
    Over the medium term, however, these countries will need to 
follow the path of the Czech Republic, which has graduated from 
EBRD investments.
    EBRD's role in Ukraine deserves special mention. At the 
time of the unlawful annexation of Crimea, Ukraine was the 
second-largest recipient of outstanding loans among EBRD 
countries of operation. Today, virtually all commercial and 
private sources of fresh capital are reluctant to invest in 
Ukraine, as lenders and investors judge the risk as too 
extreme, absent broader signals of support for Ukraine.
    The EBRD, true to its mission, continues to provide that 
signal and to make new lending available to private sector 
entities and the government. For calendar year 2015, the EBRD 
expects to make an additional $1.25 billion in new cash 
disbursements. If confirmed, I will seek to encourage the EBRD 
to continue to provide new financing to Ukraine entities on a 
prudent basis.
    My long involvement in emerging markets and portfolio 
management provides me with a deep understanding of credit and 
event risk. I also ran sales teams from London that covered 
institutional investors in Eastern Europe, Russia, Turkey, and 
the Middle East, many of the same countries where the EBRD is 
most active.
    If confirmed, I would like to focus on how the EBRD can 
most effectively support our allies in the region while 
balancing the financial risks that entails. My background and 
experience provides me with the skill set to ask the right 
questions and to understand the answers.
    Thank you again for considering my nomination, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Allen follows:]

                 Prepared Statement by Scott Ames Allen

    Chairman Perdue, Ranking Member Kaine, and distinguished members of 
the committee, I am grateful for the opportunity to appear before you 
today. I am honored that President Obama has nominated me to serve as 
the U.S. Executive Director for the European Bank for Reconstruction 
and Development.
    I would like to take this opportunity to introduce my family 
members that are here today. Bette Allen, my mother, who is 91 years 
old. She is becoming a regular at confirmation hearings, as she 
attended the hearing for my brother, Craig Allen, who was confirmed by 
this committee to serve as Ambassador to Brunei in July 2014. My wife, 
Kanako, who has devoted her career to working on economic development 
issues, first at the United Nations and currently at the World Bank. 
She is my rock. Finally, our two daughters: Lisa, who has just returned 
from a couple of years in Kyoto, Japan; and Sara, who works in finance 
in New York.
    I come from a very close family with a history of government 
service. My sister, Sara Bowden, and her husband, Dennis Bowden, are 
also here today. During the Reagan administration, Sara worked at the 
White House Office of Science and Technology Policy. Dennis spent 
nearly 30 years at the CIA. And, prior to his confirmation to serve as 
the Ambassador to Brunei, my brother, Craig Allen, spent a long career 
working at the Department of Commerce.
    Over the course of a 22-year career in investment banking, I became 
a specialist in emerging markets and credit. In the early 1980s, I was 
part of a small team of bankers focused on the sovereign rescheduling 
of commercial bank debt. My primary country of focus was the 
Philippines, but I also worked on distressed sovereigns in Latin 
America as well as Eastern Europe, specifically Yugoslavia. Through 
this work, I came to appreciate the tradeoffs between balancing 
lenders' need to protect loan assets with the sovereign nations' 
desires to reduce pressure from debt service payments so that economic 
growth could improve their citizens' livelihoods and increase repayment 
probabilities. Thirty years later, the players have changed, but many 
of the same dynamics continue to play out in Europe.
    I arrived in London in 1992 to lead Chemical Bank's emerging 
markets business. Just a couple of years earlier, during President 
George H.W. Bush's administration, the EBRD had been established, with 
the United States contributing 10 percent of the capital, the largest 
single country stake. The founding vision of the EBRD remains sound: 
fostering the economic vitality of the private sector through debt and 
equity capital to help countries effectively transition to market-
oriented, pluralistic, and democratic societies. At the time, the 
context was a post-Soviet era and EBRD's client countries were Eastern 
European countries that had just thrown off the yoke of communism.
    The EBRD today has new challenges. The EBRD has taken its founding 
vision into select countries in Northern Africa, Turkey, and Jordan 
with the same conviction that the development of an economically 
vibrant private sector will foster a political transition to democracy 
in these new client countries. At the same time, it is working to 
complete the transition of several more advanced Eastern European 
countries by aiming to reduce investments in these countries while 
recognizing that there is still a role for the EBRD, given the effects 
of European economic turmoil and Russian aggression in Ukraine. Over 
the medium term, however, these countries will need to follow the path 
of the Czech Republic, which has graduated from EBRD investments.
    EBRD's role in Ukraine deserves special mention. At the time of the 
unlawful annexation of Crimea, Ukraine was the second-largest recipient 
of outstanding loans among EBRD countries of operation. Today, 
virtually all commercial and private sources of fresh capital are 
reluctant to invest in Ukraine, as lenders and investors judge the risk 
as too extreme, absent broader signals of support for Ukraine. The 
EBRD, true to its mission, continues to provide that signal and to make 
new lending available to private sector entities and the government. 
For calendar year 2015, the EBRD expects to make an additional $1.25 
billion in new cash disbursements. If confirmed, I will seek to 
encourage the EBRD to continue to provide new financing to Ukraine 
entities on a prudent basis.
    My long involvement in emerging markets and portfolio management 
provides me with a deep understanding of credit and event risk. I also 
ran sales teams from London that covered institutional investors in 
Eastern Europe, Russia, Turkey, and the Middle East, many of the same 
countries where the EBRD is most active. If confirmed, I would like to 
focus on how the EBRD can most effectively support our allies in the 
region while balancing the financial risks that entails. My background 
and experience provides me with the skill set to ask the right 
questions and to understand the answers.
    Thank you again for considering my nomination, and I look forward 
to answering any questions you may have.

    Senator Perdue. Thank you all very much. Now we will move 
to questions, and we will do it in reverse order.
    But I am going to ask one question of each of you, just to 
get it started, and it is the same question, but it will be for 
your different posts.
    A lot of times when we have these questions, we talk about 
the historical record and what you have done to get here. I 
accept the fact that all of you have stellar careers. It is 
obvious from reading your backgrounds. So I would like to know, 
for the record, how you see your next post, what those 
responsibilities would entail. So specifically, I would like to 
see what you think your priorities might be, as you look at 
this new responsibility, and what the challenges that you 
anticipate might be as well.
    So, Mr. Allen, you are warmed up, so we will start with you 
and then we will go in reverse order. Thank you.
    Mr. Allen. Thank you for the question.
    If confirmed, I would like to think that my long experience 
in managing risk and understanding risk would help the EBRD 
manage its portfolio.
    Clearly, working in emerging markets and sovereigns is full 
of credit risk and event risk that need to be understood and 
prudent measures taken to mitigate the risk wherever possible.
    In the case of Ukraine, there was a huge event risk. It is 
noteworthy that EBRD has managed its risk prudently and is 
continuing to lend to Ukraine, thereby aligning our interests 
in Ukraine with EBRD.
    So the management of risk is an area that I would like to 
focus on while at the EBRD, if confirmed.
    Thank you.
    Senator Perdue. Mr. Estrada.
    Mr. Estrada. If confirmed, I have three priorities, as I 
see it. First and foremost is the protection of U.S. citizens 
traveling, visiting, and working in the country of Trinidad and 
Tobago. My second priority would be continuing efforts to 
strengthen the capacity of Trinidadian law enforcement and also 
improving the justice sector system, so they could deal with 
the crime and drug issues that they currently face. My third 
priority would be to focus on improving the climate in Trinidad 
and Tobago and throughout the Caribbean region for a fair and 
open, transparent trade market system.
    Senator Perdue. What challenges do you think you will have 
in trying to achieve those three objectives?
    Mr. Estrada. For the first challenge, protection of U.S. 
citizens, Trinidad and Tobago is struggling. They are 
challenged by high crime. We need to ensure that we educate 
Americans visiting the country. For those that are living in 
the country, we need to continue to educate them on safe areas, 
where not to go, and where to go for assistance. We need to 
continue to reach out to them. That would be my first 
challenge. We should be communicating with every American in 
the country. That would be my biggest challenge.
    As far as strengthening the capacity of Trinidad law 
enforcement and justice sector systems, the country continues 
to struggle because of the illegal narcotics trade. They 
continue to struggle with corruption in some areas. And they 
need to strengthen their borders. They have very open sea 
lanes, so the challenge would be to get them to move a little 
bit more quickly on addressing those areas of concern.
    Senator Perdue. Great. Thank you.
    Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chairman.
    Like Mr. Estrada, my number one goal would be the safety 
and security of both official and nonofficial Americans in 
Suriname. The challenge we face there is continuing to 
professionalize the police and military institutions in the 
government; education and democratic control of the military; 
and a full range of law enforcement programs that would improve 
the police and military's performance. The problem in Suriname 
is not terrorism at the moment, even though that can change 
anywhere at any time. It is crime. So that makes it very 
important to work with the police.
    I think that leads into the second goal I would have, which 
are the issues under citizen security, democratic governance, 
and the rule of law. If we can work with the Surinamese to 
strengthen institutions there, it is not only a benefit in and 
of itself, but it will help us deal with some of our other 
concerns there, such as the transshipment of drugs and the 
trafficking in persons.
    These are some of the issues that we want to get at with 
the Surinamese, and I hope to do so, if confirmed.
    My third area would be to facilitate economic growth and 
development in Suriname. We have some significant U.S. 
investment in Suriname, including a very recent billion-dollar 
investment by a U.S. mining company in gold-mining. We want to 
move the Surinamese to a more sustainable, environmentally 
sensitive development pattern.
    Their rain forest is one of the world's ecological 
treasures. If we can make sure they develop both for the 
benefit of the Surinamese people, for U.S. investors, but also 
to preserve that environment, to the extent possible, it will 
be very important.
    Thank you.
    Senator Perdue. Thank you.
    Ambassador.
    Ambassador Robinson. Thank you, Mr. Chairman.
    Mr. Chairman, CSO is a young bureau that faces a complex 
and global challenge, and since its inception it has undergone 
a period of dynamic learning as it adjusts to that challenge 
and as it seeks to ensure its place in the interagency 
community. What I can say is that it has an extraordinarily 
dedicated and talented staff.
    So, my goal, my priority, is to provide the kind of 
disciplined leadership that seizes that staff, directs its 
attention, its talents, and its dedication to getting its job 
done and knitting that skill into the main fabric of the State 
Department, so that it delivers what it is designed to deliver 
in a way that is not only recognized as useful for the State 
Department and for the interagency community but is essential 
as it faces the challenge of violent conflict.
    Senator Perdue. Thank you.
    Ms. Calvaresi Barr.
    Ms. Calvaresi Barr. Thank you, Mr. Chairman.
    I look really forward to assuming this role, if confirmed. 
I believe my 32 years in the accountability community positions 
me well.
    While I am not at the agency currently, I think I know how 
to get this job done, so a couple things that I would want to 
begin with. It is about learning the agency. And it sounds very 
simplistic, but it is a rule that I always followed. I would 
want to get a sense of the work, the processes, and the people, 
what is working well, what is not working well. That means I 
need to be in the listening mode. That means that I need to 
engage with our staff. I have to look at what sets our 
priorities. And the most important thing is to make sure that 
we have processes in place that yield work that is quality, 
that is reflective of the standards, and that is transparent to 
Congress and to the American public.
    I would certainly want to reach out to members of this 
committee to understand what your interests are, legislative 
interests, priorities for the upcoming year, so that I can 
understand how our work can best meet those needs.
    In addition, I would want to coordinate with the AID 
administrator to understand what that individual believes are 
some of the greatest challenges and vulnerabilities.
    At the end of the day, and I think a couple of my panel 
members here mentioned it too, people are your greatest asset 
in an organization. And if you invest in them and you invest in 
their development, and you are a good leader that marshals and 
does not direct, it is amazing what you can get done. And the 
mission can be very, very well-served.
    So that would be how I would approach it.
    Senator Perdue. Thank you.
    We will move on to the ranking member, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to all of you.
    Ms. Barr, I wanted to ask you a question. I recognize you 
are not at AID now, so this is more how you would approach 
this. In the October 14 OIG audit of USAID and USAID's 
compliance with FISMA, the Financial Information Security 
Management Act, the audit had a conclusion that USAID does not 
comply with FISMA. Although the agency has developed and 
documented the majority of the information security policies 
and procedures required under the act, USAID has not 
established an effective risk management program to ensure that 
policies and procedures are assessed and working as intended.
    Consequently, the audit found a number of information 
system weaknesses that, if exploited, could adversely affect 
the confidentiality, integrity, and availability of USAID's 
data and information systems, and ultimately could have a 
negative impact on the agency's ability to protect the security 
of its information and information systems.
    This is the kind of warning that I am sure is not unique to 
USAID, and we are dealing here with the challenge of the OPM 
data breach.
    How would you in the position kind of approach that kind of 
recommendation, in terms of trying to get USAID to comply more 
with the FISMA requirements, as described?
    Ms. Calvaresi Barr. Thank you for the question, Ranking 
Member Kaine.
    FISMA is a very, very important program and policy that we 
need to be very, very closely attuned to. I would say, in IT 
systems, the security posture of any IT system has to be 
absolutely secure. So conducting work audits that reveal where 
there are weaknesses or vulnerabilities in those IT systems, it 
is important to point out what those vulnerabilities are from 
an agency-wide perspective. In the case of AID, maybe even try 
to drill down as we did in the case of DOT, not just provide 
sort of the scorecard on the state of security posture across 
the agency but a scorecard by, in the case of DOT, 
administrations.
    So what I would like to do is take a look at that report. I 
would like to see what the recommendations are. I would like to 
see the status of those recommendations, the extent to which 
they are followed up. We will continue with our required work 
in the FISMA area, and we would make sure that that system, as 
well as any other systems, have to be about protecting the 
integrity of data. And FISMA speaks to the heart of the 
integrity of data.
    So you would have my full commitment to keep a close eye on 
that.
    Senator Kaine. Here is a question that is really more about 
philosophically the role of an IG, as I am kind of new on the 
committee still at 2\1/2\ years. I am really learning the job. 
There was a controversy within USAID about a previous acting 
director and a suggestion that this acting director, between 
2011 and 2013, was removing from public audit reports 
recommendations or challenging comments and putting them in 
private letters to management instead. Some in the agency 
basically said that that was motivated to try to make him or 
others look better than they were.
    From an IG perspective, I mean, I am assuming that 
sometimes you come up with recommendations and some you might 
share confidentially or in a prefatory way or a preliminary way 
to try get people to make improvements, and then some you make 
public so that the world will know. How as an IG do you handle 
that as you are analyzing the performance of this agency that 
you are independently charged with overseeing?
    Ms. Calvaresi Barr. Certainly, I am aware of the concerns 
that you mentioned. I am aware of them but I do not know the 
key facts surrounding them, so I do not want to speculate 
actually on any of the particulars.
    But to your larger question as to what is the appropriate 
role of the IG and concern for those matters, it goes back to 
my role of ensuring that we have absolutely airtight processes 
that ensure that our work is evidence-based, that it is of 
quality, that it is free from any type of outside influence. 
The process has to include a good vetting, verification of the 
data, quality control checks of the data in-house before it is 
publicly released.
    So I want to take a really good look at the process that 
was used there that perhaps prompted maybe some weaknesses, and 
the process that prompted some of these questions, to make sure 
that we go ahead and fix any of that.
    At the end of the day, the most important thing is 
transparency of our work products. There should be no hidden 
findings anywhere. There should not be reports that are 
banished to management letters that never see the light of day. 
So you have my commitment that all of our work will be posted 
publicly upon final publication of the work.
    Senator Kaine. Thank you very much, Ms. Barr.
    Now to you, Mr. Robinson, two questions. I would like to 
ask you about Honduras, and I would like to ask you about Syria 
and the CSO work that is being done.
    I know there is work being done in Honduras because of the 
serious violence problem there. Honduras has been a good U.S. 
ally, but this is a very, very challenging area. In the 
Northern Triangle, you have the highest murder rates in the 
world, three of the five highest murder rates in the world in 
those countries. The President has proposed a significant 
investment in a plan in Central America to help them deal with 
the security situations.
    What is the CSO currently doing or what might it do, if 
Congress sees fit to appropriate significant funds to this 
initiative, to help Honduras and the other countries in the 
Northern Triangle deal with the violence issues? I ask because 
I lived there 35 years ago and have a particular and personal 
interest in it.
    Ambassador Robinson. Thank you, Senator.
    Under the President's proposal, CSO would, in the first 
instance, design and then manage the monitoring and evaluation 
function to make sure that the proposal--that the programs--
that are implemented in Honduras or in Central America--are, in 
fact, working as intended. As part of the monitoring and 
evaluation program, CSO has a commitment to developing the 
lessons learned that it then transfers to future planning and 
programs. So, it is a feedback loop that we would continue to 
refine the program in an intergovernmental fashion to get the 
best use out of it.
    On the particulars of Honduras itself, CSO launched a 
program in conjunction with USAID to do two things, first to 
address the tremendous violence that made Honduras, at that 
time, from 2012 to 2014 when the program was running, the 
murder capital of the world and also to prepare to limit the 
damaging impact that violence would have on elections in 
Honduras.
    So, working with local NGOs, local civil society 
organizations, and with our USAID partners, CSO launched a 
program in Honduras to bring together civil society officials 
and police to create early warning systems, to create fast 
response systems, allowing community leaders to intervene where 
violence would be or was beginning to become even more 
problematic.
    In addition, working in the justice sector, it put 
pressure, through these civil society groups and through these 
NGOs, on the government and on particularly the attorneys 
general to perform their jobs. The result was astounding. The 
number of convictions increased enormously, where CSO had been 
working with the attorneys general.
    CSO has turned that program over, as it was intended to do, 
has transitioned it to the local implementers, to local 
partners in the field, and it continues to run today. So, the 
program is still effective. It is still functioning, and it 
will expand.
    CSO continues to support that. The Embassy supports it as 
well. And INL also supports that program.
    So, it is a good example of the interagency aspect of CSO's 
work.
    On elections violence, CSO identified the hotspots that 
were likely to erupt. It created, again with local 
implementers, the civil society groups that could respond to 
the kind of political dialogue that was provoking electoral 
violence. It mapped out the major actors--both pro and con--and 
gave those, of course, to the Embassy, to the Ambassador. The 
Ambassador made phone calls to those actors, and, in fact, the 
elections did occur without the eruptions of violence that were 
anticipated in those areas.
    Following the elections, which is also a critical period to 
monitor violence, of course, the Ambassador actually visited 
those areas and talked to those people. The result was an 
extraordinarily strengthened regime of civil society action to 
take responsibility for the street violence that otherwise may 
have impeded the elections, and that, again, continues today.
    At the end of the day, one of the benefits of the CSO 
action was to turn over to the Embassy, to turn over to our 
diplomatic mission, a new network of actors that can directly 
address the kind of violence that has disrupted Honduras.
    Senator Kaine. It is a very important issue, not just 
because I live there. I am not asking just for that reason. 
Obviously, with the huge upturn in the unaccompanied minors 
coming to the southern border of the United States heavily from 
Honduras, El Salvador, and Guatemala, driven by violence 
issues, smart investments and smart CSO participation in 
antiviolence strategies will have a direct benefit to the U.S. 
system as well. We are close partners.
    Let me ask you about Syria. I recently did a codel to 
Syria, and I met with individuals connected with the START team 
under the leadership of Mark Ward. I know that a lot of work of 
the CSO as a new bureau initially was done dealing with the 
Syrian refugee crisis. But I understand that that work has now 
been moved primarily from the CSO division within State over to 
the NEA division within State.
    Could you just describe why that is? I know there have been 
efforts to define what the CSO mission is within State, but I 
am curious about the reason for that transfer.
    Ambassador Robinson. Yes, Senator.
    Most CSO programs are designed to transition to a more 
sustainable platform. The purpose of CSO is to be agile, is to 
go in and to seek innovative, if that is what is required, or 
creative responses to problems, to fill in gaps that cannot be 
filled in, but not to substitute for capacity that can be found 
in country.
    CSO is not designed to remain in a place to be the operator 
for extended periods of time.
    As I mentioned in the Honduras example, CSO successfully 
transitioned its programs to local implementers. Obviously, 
Syria is a different story. The local implementers are not 
quite available to us at this point.
    Consequently, CSO did transition its programs to the NEA 
Bureau. That transition is now complete. That said, CSO remains 
engaged, in particularly staffing General Allen's office and 
the counter-ISIL work and on the Liberated Areas Working Group, 
and we have a broad cadre of personnel in CSO with great 
experience in that part of the world. So, we remain deeply 
engaged in the planning efforts, but not in the actual 
implementation efforts, at this point.
    Senator Kaine. Mr. Chair, can I continue with questions for 
the other witnesses?
    Senator Perdue. Absolutely.
    Senator Kaine. I have gone over my time.
    Senator Perdue. No, you are in good shape.
    Senator Kaine. These are important positions.
    I actually would like to ask you, Mr. Nolan and Mr. 
Estrada, kind of the same question for Suriname and Trinidad 
and Tobago. You both mentioned public safety and security 
issues. We still continue to see major drug activity, drug 
transit from South America, often through Central America, 
through Honduras, as we were just describing, to the United 
States.
    General Kelly has testified often before the Armed Services 
Committee, where I serve, and has just basically said, in the 
SOUTHCOM domain, the resources for interdiction are just not 
what he would hope. He says I watch 75 percent of drugs coming 
into the United States just go right by me, and he was talking 
in an antisequester message, but, certainly, he is also talking 
about cooperation between the U.S. military in the SOUTHCOM 
space and other U.S. partners, State and others, as well as the 
militaries of the nations that we are dealing with.
    Talk a little bit about, in Suriname, and then in Trinidad 
and Tobago, the current status of mil-to-mil relationships, 
what you might do in your ambassadorial posts to help basically 
with this interdiction effort.
    Mr. Estrada, you talked about sea lanes needing to be 
better controlled to help this issue in Trinidad and Tobago. 
The United States can play a role in that.
    Talk a little bit about our military cooperation with each 
of your nations.
    Mr. Nolan first.
    Mr. Nolan. Thank you, Senator. It is, certainly, an 
important question.
    Suriname is not a drug-producing country, but it is a major 
transshipment country. No drug transshipments are good. They 
tend not to come to the U.S. from Suriname. They are largely 
going to Africa and to Europe. But that does not mean we do not 
need to take action against them.
    A large problem that we have with Suriname is, even with 
the best of cooperation from the military, if we had that, it 
is just a very large and very unpopulated and difficult space 
to know what is moving through the country.
    So what we have tried to do with our programs, through 
SOUTHCOM, a partnership program with South Dakota National 
Guard and the Surinamese military, and with INL programming, is 
train the trainers on how to improve their ability to deal with 
controlling that space. We have tried to provide some 
additional capacity, because a lot of the drug flow does move 
along rivers once it gets into the country.
    To be honest, in the preelection period we had in Suriname 
in May, we were not getting tremendous cooperation from the 
government. A lot of the programs had stepped back a little bit 
even though training programs are still continuing.
    With the new government, we do have the same President, but 
I always take it as an opportunity to engage with the new 
government. We have some new ministers and we want to try again 
to engage them more fully. We think there are a lot of good 
people in the Surinamese military who really want to cooperate. 
I will try, if I am confirmed, to get more central buy-in so 
they get the resources and support they need to take advantage 
of the programs that we can offer both through INL funding and 
SOUTHCOM.
    Senator Kaine. Thank you, Mr. Nolan.
    Mr. Estrada, the SOUTHCOM question.
    Mr. Estrada. Thank you, Senator Kaine.
    The United States has instituted a comprehensive 
interagency, anticrime, and counternarcotics strategy aimed at 
assisting Trinidad and Tobago law enforcement agencies to 
detect and interdict narcotics and to develop the skills to 
manage the evidence needed to prosecute those crimes. Agencies 
that are playing a part in this effort are the Drug Enforcement 
Agency, which works to help disrupt the flow of narcotics to 
the United States. This has, in fact, resulted in seizures of 
large quantities of cocaine and marijuana.
    There is still a lot of work to be done, working with all 
the different agencies. You mentioned SOUTHCOM. If confirmed as 
U.S. Ambassador to Trinidad and Tobago, I will focus on those 
areas and work with the Government of Trinidad and Tobago. They 
realize they have a challenge in this area, and I will do 
everything I can to help them address that issue.
    Senator Kaine. Thank you, Mr. Estrada.
    Finally, Mr. Allen, a lot of the work that has been done by 
the EBRD initially has been with firms in Russia, so I was kind 
of going to ask, as you come into this post, how has the 
Russian dynamic with Ukraine and other European nations, how is 
that likely to change our trajectory of the EBRD work?
    And I was basically going to ask the same question about 
how the arc of EBRD work will change as a result of the 
challenges we have been seeing in Greece. You mentioned that 
have developed your appreciation through earlier work about 
this balance of trying to protect lenders interest, but also 
protect the interest of the government that wants to be able to 
grow and not just spend all their resources repaying debt.
    My layman's read of a lot of the recent Greek deal is that 
we are lending them more money so that they can pay off bad 
debts, but without necessarily being able to use that money to 
be able to grow the economy.
    So you do not have to editorialize on that, but I am just 
kind of curious how the EBRD mission might address the Russia 
challenge and how it would address the current challenges posed 
by the Greek situation.
    Mr. Allen. Thank you very much for both questions, Senator.
    Let us start with Greece. Everyone wants to help Greece. 
The EBRD, the United States, the eurozone wants to help Greece.
    EBRD is fortunate that it was not lending to Greece, so it 
has zero exposure. The Greek Government requested EBRD to start 
evaluating projects earlier this year. Clearly, there is a lot 
of uncertainty, a lot of event risk, a lot of economic turmoil 
in Greece.
    Going forward, some of that uncertainty needs to be 
alleviated before, in my opinion, the EBRD should start lending 
any money in Greece. In any event, my understanding is that any 
financing in Greece will be short term and very targeted toward 
the private sector, not with the government.
    In the case of Russia, a bit of history, if I may, please. 
The EBRD was set up in 1990. At that time, the Soviet Union was 
disintegrating. So the EBRD and the United States and 
administration at the time looked at the EBRD as a way to start 
developing the private sector. There were trade missions under 
Presidents Clinton and George W. Bush trying to do the same 
thing, by engaging with the private sector to increase the 
dynamics in the economy and through those dynamics to help 
prompt a political transition.
    Again, from a historic perspective, when President Medvedev 
took over, there was a lot of optimism that this could happen. 
I mean, President Medvedev talked about establishing technology 
hubs. The EBRD, in fact, started to increase its lending around 
that same time. The United States was very much wanting to 
engage with Russia, and to see the development of the private 
sector, which hopefully would lead to more of a pluralistic 
democracy.
    The second coming of Vladimir Putin threw that optimism 
into a tailspin. The EBRD was caught with a lot of Russian 
loans. There is no doubt about that. Pre-Crimea Russian 
exposure of EBRD versus Russian exposure now, they have worked 
very hard to reduce that risk. So it has been reduced by 25 
percent to 30 percent. That is a step in the right direction.
    Senator Kaine. Would that be from like about 30 percent 
down to low 20s?
    Mr. Allen. No, the Russian share of the EBRD portfolio was 
around 21 percent. Now it is around a little less than 14 
percent.
    So the mitigation of Russian risk is happening. A lot of it 
is the rolloff of trade finance, but clearly there is no new 
business being done in Russia. The G7 has basically told the 
EBRD not to start any new business whatsoever post-Crimea.
    EBRD is still engaged with, obviously, its Russian 
counterparts in order to be able to ensure the timely repayment 
of loans. But it is not making any new payments, and it is 
mitigating and trying to reduce the overall risk.
    Senator Kaine. One followup and I am done.
    How about in Ukraine?
    Mr. Allen. Yes, Ukraine, it was the second-largest borrower 
from EBRD. U.S. interests are right along with the EBRD's 
interests. It is a strategic priority for the EBRD and for the 
United States to continue to finance new business in Ukraine. 
The EBRD took some losses, but the commitment I think is seen 
in the fact that it is raising $1.25 billion in new 
transactions in Ukraine for 2015.
    At this point in time, it is pretty safe to say that that 
the EBRD is probably the only, if not one of a couple, of 
lenders willing to put fresh capital in Ukraine. The event 
risks are enormous. The economy is under a lot of stress.
    And if confirmed, I would encourage the EBRD to continue 
this course of providing new financing to the private sector, 
as well as in the oil and gas sector with the government, and 
to continue to support Ukraine, which is aligned with our 
interests.
    Senator Kaine. Very informative answers, all of you. Thank 
you very much.
    Senator Perdue. That is fascinating.
    I do want to follow up on one thing, Mr. Allen. With regard 
to the Russian exposure to the EBRD, how does that burn off? 
What is the duration of most of that risk?
    Mr. Allen. Thank you very much for the question, Senator.
    I have not been at the EBRD, so I do not know in detail. I 
suspect that some of it is trade financed, because they work 
very well with banks. So some of it will be trade financed. I 
do not know what the duration of their portfolio is and whether 
or not loans that came due were paid. That may have been some 
of the reduction in overall exposures. Whether or not there has 
been any disposal or sale of loan or equity stakes, I cannot 
comment on because I do not know.
    But it is an interesting question. Clearly, the reduction 
in risk is good, and it needs to be accelerated whenever 
possible.
    Senator Perdue. If you are confirmed, I will seek you out. 
I would like to learn more about that. Senator Kaine and I have 
talked about that.
    Mr. Allen. I look forward to that, sir.
    Senator Perdue. Thank you all very much for your testimony 
and your thoughtful responses. It is encouraging to see talent 
like you being willing to step up and do what you are about to 
do and what you have already done, most of you.
    That will be the end of our questioning today. The record 
will remain open, however, until close of business Thursday for 
members who wish to submit questions to the record.
    With that, this hearing is adjourned. Thank you very much.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


 Responses of Edwin Richard Nolan, Jr., Nominated to be Ambassador to 
  the Republic of Suriname, to Questions from Members of the Committee

                ambassador-designate nolan's responses 
                    to questions from senator rubio
    Question. In May, the National Democratic Party obtained 26 of the 
51 seats giving them an absolute majority. President Desire Bouterse 
was reelected, however some remain concerned about democratic 
governance and corruption in the political system.
    In your testimony you stated that you ``will continue the efforts 
of your predecessor to press the Government of Suriname for an 
independent judiciary capable of protecting and advancing democracy and 
the rule of law in Suriname.''

  <diamond> Can you provide more details about the efforts of your 
        predecessor to improve the juridical system and what effects 
        they have had? How would you continue to pursue such efforts?
  <diamond> If confirmed, please detail what specific policies will you 
        promote to increase American trade and investment in Suriname?

    Answer. Ambassador Anania and Embassy Paramaribo have implemented 
training programs for prosecutors and judges, and additional training 
in complex financial crimes cases is planned for the coming months. 
They have advocated with senior government officials the need to 
establish an independent budget for the judiciary, which is currently 
funded via the Ministry of Justice and Police.
    If confirmed, I will seek to build upon of these programs and look 
for additional opportunities. In addition, I will urge the Government 
of Suriname to respect the separation of powers and to allow the 
judicial system to work without political interference.
    Embassy Paramaribo engages regularly with the business community, 
often connecting importers with U.S. producers. They provide U.S. 
business with investment and commercial information across sectors--
including mining equipment and supplies as well as construction 
material and equipment. If confirmed, I will actively highlight 
commercial opportunities that U.S. companies can take advantage to 
expand their exports. I will also explore opportunities for 
partnerships with the Suriname Chamber of Commerce and an Embassy 
presence at Suriname's largest trade fair.

    Question. In the 2015 Trafficking in Person report, Suriname was 
placed in Tier 2 Watch List.

  <diamond> How do you intend to work with the Government of Suriname 
        to encourage them to improve their efforts to combat 
        trafficking in persons?

    Answer. Suriname is a source, transit, and destination country for 
women and children subjected to sex trafficking and men, women, and 
children subjected to forced labor. Workers in mining, agriculture, and 
fishing are highly vulnerable to forced labor, and women and girls are 
subjected to sex trafficking in remote and illegal gold mining camps in 
Suriname's interior. Chinese migrants are also vulnerable to 
trafficking in the service and construction sectors.
    Senior government officials have made limited antitrafficking 
efforts. Working-level officials--primarily police and prosecutors--
continue to investigate and prosecute trafficking cases and refer 
victims to assistance but without sufficient resources or adequate 
victim assistance structures in place.
    We continue to encourage the Government of Suriname to improve 
victim identification and to provide adequate resources for victims--
including through establishment of long-term shelters for victims. We 
also encouraged government officials to vigorously investigate and 
prosecute trafficking crimes, to convict more traffickers, to provide 
additional resources for the police antitrafficking unit, and to 
improve interagency coordination on human trafficking issues.
    If confirmed, I will continue to pursue combating human trafficking 
as a priority. Suriname is not eligible to remain on the Tier 2 Watch 
List next year, so failure to make meaningful progress will result in 
an automatic downgrade to Tier 3. I will make clear to senior officials 
that their failure to make significant efforts to combat trafficking 
would have broad policy implications and consequences, including 
potential restrictions on foreign assistance.

                               __________

    Responses of John L. Estrada, Nominated to be Ambassador to the 
   Republic of Trinidad and Tobago, to Questions from Members of the 
                               Committee

               ambassador-designate estrada's responses 
                    to questions from senator rubio
    Question. Mr. Estrada as you are aware, there is a conflict between 
Venezuela and Guyana stemming over oil exploration. If confirmed, what 
would be your position to better address the existing dispute between 
two of your neighboring countries.

    Answer. Any effort to resolve this situation should be through 
peaceful means, consistent with international law and the applicable 
obligations of both parties. If bilateral dialogue is not sufficient, 
there are a number of third-party options available to both governments 
in the search for a peaceful, mutually satisfactory resolution. If 
confirmed, I will urge the Government of Trinidad and Tobago to support 
the resolution of this and any territorial disputes through peaceful 
means of dialogue.

    Question. Mr. Estrada, in your opening remarks, you stated that 
Trinidad and Tobago is a key player in the multifaceted citizen 
security initiative for the Caribbean (CBSI) and part of the initiative 
is ``attempting to combat the drug trade and other transnational crimes 
that threaten regional security . . .'' If confirmed, what specific 
measures would you take to combat drug trade and transnational crimes 
and preserve democratic stability in the region?

    Answer. The United States works closely with Trinidad and Tobago 
through the Caribbean Basin Security Initiative (CBSI). If confirmed, I 
would continue to expand cooperation to combat transnational crimes, 
such as illicit drug trafficking.
    Under CBSI, the U.S. Department of State supports a broad range of 
engagement with the Government of Trinidad and Tobago and the region to 
combat illicit trafficking and strengthen law enforcement capabilities. 
Specifically, we are working with the Government of Trinidad and Tobago 
to build the capacity of the Trinidad and Tobago Police Academy (TTPA). 
The TTPA will serve as a center to provide specialized training to both 
the Trinidad and Tobago Police Service and regional law enforcement 
agencies. In order to augment this capacity, we are increasing 
specialized in-service training for police and improving capacity to 
develop evidence-based cases. Furthermore, we are providing K-9 
training support to the Trinidad and Tobago Police Service and Trinidad 
and Tobago Prison Service to combat drug trafficking and transnational 
crime.
    Technical assistance for the Trinidad and Tobago Financial 
Investigations Unit and the Trinidad and Tobago Police Service's 
Financial Investigations Branch provides regulators and investigators 
in these units with the tools they need to succeed in combating 
transnational crime. In addition, U.S. support for the Trinidad and 
Tobago Forensics Science Unit is working to increase host nation 
capacity to prosecute criminal cases with forensics evidence. Trinidad, 
along with other CBSI countries, participates in regular maritime 
security exercises and workshops to enhance regional coordination and 
operations against drug traffickers.

    Question. In the 2015 Trafficking in Persons report, Trinidad and 
Tobago was placed on the Tier 2 Watch List. How do you intend to work 
with the Government of Trinidad and Tobago to encourage them to improve 
their efforts to combat trafficking in persons?

    Answer. This past year, the Government of Trinidad and Tobago's 
antitrafficking unit sustained efforts to identify trafficking victims 
and refer them to care. The government investigated trafficking 
offenses--including potentially complicit law enforcement and 
immigration officials--but initiated only one prosecution against a 
suspected trafficker under its 2011 antitrafficking law, a significant 
decrease compared to the 12 prosecutions during the previous reporting 
period. The government has yet to convict any individuals under its 
antitrafficking law and did not develop a national plan of action as 
mandated under that law. If confirmed, I will work closely with the 
Government of Trinidad and Tobago to improve this rate of conviction 
and develop a national action plan to protect trafficking victims and 
prosecute the traffickers.

                               __________


                               NOMINATION

                              ----------                              


                      TUESDAY, SEPTEMBER 22, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Susan Coppedge, of Georgia, to be Director of the Office to 
        Monitor and Combat Trafficking, with the rank of 
        Ambassador at Large
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Gardner, Perdue, Isakson, Cardin, 
Menendez, and Murphy.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    Today we have before us Susan Coppedge to head the TIP 
Office for State. And I am thrilled that she is here.
    I just came from a meeting this morning. I was over at a 
church here on the Hill. There were people here from all over 
the country to push the legislation that we unanimously passed 
out of the Foreign Relations Committee under your leadership as 
chairman, the End Modern Slavery Initiative Act. And it was 
pretty overwhelming. I know I try to stay out of pulpits. 
[Laughter.]
    This was the only place from which I could speak today that 
had a microphone. But it was pretty overwhelming to see the 
numbers of people up here who care so deeply about this issue 
from all over the country.
    And you know, the issue of trafficking in persons and 
slavery is something that is not a Democrat issue. It is not a 
Republican issue. It is not an independent issue. It is just a 
moral issue, and it does not take major decision memos that sit 
on Presidents' desks. It just takes all of us vigilantly 
fighting to make sure that we deal with this most abhorrent 
thing, and that is trafficking in persons but also the whole 
issue of slavery in general.
    So I just want to say to our committee I am so thrilled 
with today's hearing. I am so appreciative and proud of our 
committee for what we have begun to do, and I think we have 
some momentum around this issue.
    But Susan Coppedge's nomination could not come at a better 
time. I do not think there is anybody that was a part of the 
briefing last week that does not believe there is at least some 
degree of integrity that we need to challenge relative to the 
2015 TIP Report. I am sorry. Something is amiss there.
    I want to thank Senator Cardin and Senator Menendez and 
Senator Perdue and others who were there.
    I am sorry. I do not think we have had an advocate at the 
State--I know we have not had an advocate. We have not had 
anybody in the position since November 2014. So to have 
somebody of this caliber who is absolutely first rate, who has 
lived a life around this issue and has been so committed just 
makes this a great day for our country. And I hope, after her 
testimony today, we will move quickly to have her confirmed. I 
am thrilled that she is here. And I think with her and her 
breeding some integrity but also some advocacy, that has been 
missing in this program will do a lot not just to restore, if 
you will, our preeminence in the world around this issue. I am 
sorry. I think we have lost a degree of that. That has nothing 
to do with our nominee.
    I actually believe we are on the verge of doing something 
relative to slavery that is going to show real U.S. leadership. 
And so for that reason, I am very pleased that Susan has agreed 
to be nominated and to go through the process of this hearing 
and hopefully to assume this role, which is so important to 
people around the world that live in poverty and basically--let 
us face it--they have no access to the criminal justice system 
because they just do not have the ability, unlike people like 
us that are U.S. Senators and people in the audience that have 
status in the world. So many people in poverty just do not and 
therefore are trafficked, are abused, and live lives of 
complete misery. And our Nation can do something about it, and 
with Susan's leadership in the TIP Office to me is one of the 
essential building blocks to make that happen.
    So I am sorry my comments were so long. I will turn it over 
to our esteemed ranking member and thank him for his lifelong 
commitment to human rights.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, I concur in everything 
you said.
    Ms. Coppedge, thank you very much for your willingness to 
step forward at this very important time. This is an extremely 
important position. It will take a great deal of your energy 
and time. And we thank you for your willingness to serve our 
country.
    I also want to thank your family because this is not easy 
on family. We know that. And we thank them for their 
willingness to share you with our country in carrying out one 
of our most important functions.
    Senator Corker is absolutely right. Modern day slavery is 
something that has to end. The number of people who are victims 
of trafficking is staggering. It is in the tens of millions. 
The profit to illegal entities from trafficking is in the 
hundreds of billions of dollars. So we are talking about a huge 
area of profit for criminal activities and an incredible human 
rights violation. It is modern day slavery. And we need to 
continue to be in the forefront.
    I first got engaged in this under the Helsinki Commission 
where we made this a U.S. priority in the OSCE. And we were 
successful in establishing a trafficking commitment within the 
OSCE. There is now a representative on trafficking in the 
parliamentary assembly. That person is Chris Smith, our 
colleague from the House of Representatives, who has been one 
of the great leaders on trafficking legislation. It was, I 
guess, about 15 years ago that we passed the trafficking in 
persons statute here, which set up the TIP Report, which is the 
gold standard for judging all countries' commitments to 
universal standards to end trafficking.
    I have visited victim assistance centers around the world 
and seen firsthand those who have been victimized by 
traffickers. I have seen the consequences of it to families. I 
have seen the labor abuses that have taken place through 
trafficking. And it has to be our top priority.
    So the position that we are looking at today, Ambassador at 
Large and Director of the Office to Monitor and Combat 
Trafficking in Persons, the person who will head our TIP 
Office, has a critical mission to play because the United 
States is the global leader on this issue and the world watches 
what we do and how we respond. And our key person on this issue 
is the person we confirm for the position of Ambassador at 
Large and Director of the Office to Monitor and Combat 
Trafficking in Persons. It is critically important that that 
person be effective in dealing with the Under Secretary for 
Civilian Security, Democracy, and Human Rights, the Under 
Secretary for Political Affairs and our regional secretaries, 
particularly as they review progress being made in each around 
the world so that when the decision is made by the Secretary of 
State on the TIP Report, it is the Ambassador at Large who has 
been effective in ensuring objectivity when it comes to 
countries' rankings on the TIP Report.
    So I very much look forward, Ms. Coppedge, to your 
testimony but also to quick confirmation. You have Senator 
Isakson at your side. You could not have a person who we are 
more impressed with his opinions on other people, than Senator 
Isakson. So we look forward to your testimony and, more 
importantly, we hope that we can move this quickly and get a 
confirmed position as head of the office.
    The Chairman. Thank you, Senator Cardin.
    We will now turn to our witness, and as Senator Cardin 
mentioned, Johnny Isakson, our great friend and esteemed 
colleague, is going to introduce her, which makes it almost a 
unanimous assent on the floor when he does so. Senator Isakson, 
I know you are on the committee, but you know the drill. If you 
in fact have another meeting you need to go to, there is 
certainly no reason for you to stay during her testimony if 
there is something else you need to attend to. But we thank you 
very much for being the kind of person you are. We are glad 
someone from your State, which--let us face it--embodies all 
those values that you do here, is willing to ascend to this 
job. We certainly look forward to your introduction, and thank 
you so much for your service.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Corker and 
Ranking Member Cardin and all the members of the committee with 
whom I have been honored to serve for a number of years.
    I appreciate the privilege of doing it. This is a twofer 
for me. About a year ago, I had the privilege of introducing 
Sally Yates to the Judiciary Committee, upon her confirmation 
as Deputy United States Attorney. Today in front of this 
committee, I am getting to introduce Susan Coppedge who studied 
under Sally Yates to be the Ambassador at Large for Trafficking 
in Persons, and I am honored and privileged to be able to do 
so.
    There are lots of things I could say about this lady, but 
the best thing is she has been there and she has done that. In 
the Northern District of Georgia in the last 15 years, she has 
prosecuted 21 high profile human trafficking cases. A couple of 
them I would like to mention.
    The Cortez-Mesa case, which resulted in the conviction of 
10 pimps and profiteers from the trafficking of young girls, 
six of them juveniles. Not only did she obtain long sentences, 
but she got restitution for those that were injured and 
trafficked, which was a great credit to her ability.
    And then the U.S. v. Pipkin case, where she put away for 40 
and 35 years, respectively, two of the most notorious criminals 
in terms of human trafficking that were coming out of Mexico 
into the United States of America.
    The Northern District of Georgia is probably the gatepost 
and the center post for transited people from Latin America and 
Central America and Mexico, up the eastern seaboard to New York 
City and New England in terms of drugs, organized crime, human 
trafficking, and illicit activity. She has been the lead 
prosecutor and has prosecuted a number of high profile cases, 
all of which resulted not only in convictions but in 
recognition from the U.S. Attorney for her outstanding service.
    She graduated from Stanford University with a juris 
doctorate, and got a magna cum laude, which I cannot even 
pronounce or spell, much less ever obtain, from Duke University 
in her undergraduate degree. And she is a very articulate, 
educated individual.
    But I have to tell you an irony. The day that Secretary 
Kerry interviewed her for this job was the day that Duke won 
the national championship in basketball. She says that is a 
good omen for today and hopefully it will be a good omen for 
her.
    It is a privilege and a pleasure for me to introduce to the 
committee one of Georgia's outstanding attorneys, one who 
studyed under one of Georgia's outstanding leaders in Sally 
Yates, and one of which I am very proud to introduce to this 
committee and one who understands the sensitivity of the 
chairman and the ranking member on the manipulation of numbers 
in terms of the TIP and is going to be committed to seeing to 
it we have unvetted, unvarnished information and we do the 
right thing when it comes to those rankings every single time.
    Mr. Chairman, Mr. Ranking Member, members of the committee, 
an outstanding Georgian, Susan Coppedge.
    The Chairman. Thank you. Thank you so much. As usual, an 
outstanding job.
    Our witness is Susan Coppedge, who has been nominated to 
serve as Director of the Office of Monitor and Combat 
Trafficking, with the rank of Ambassador at Large. And we look 
forward to your testimony. Thank you for being here.

 STATEMENT OF SUSAN COPPEDGE, NOMINATED TO BE THE DIRECTOR OF 
          THE OFFICE TO MONITOR AND COMBAT TRAFFICKING

    Ms. Coppedge. Mr. Chairman and Senator Cardin, thank you so 
much for the hearing today to consider the nomination for 
Ambassador at Large to monitor and combat trafficking in 
persons.
    Senator Isakson, thank you so much for that generous 
introduction.
    I am honored by the opportunity to appear before you, as I 
am honored and humbled by the confidence that President Obama 
and Secretary Kerry have placed in me to serve our Nation in 
continuing the global flight against human trafficking.
    I want to thank the individuals from the Office to Monitor 
and Combat Trafficking in Persons: Kari Johnstone and Carl Fox. 
They truly have their hearts in this fight and they stand ready 
to help me settle into the State Department.
    I also want to thank my husband, Lorenzo Amato, who is here 
today. Without his support and love for me and our children, I 
could not do this job.
    My father is here. My sister, my cousin, my brother-in-law, 
many of my friends from the U.S. Attorney's Office in Atlanta 
are here. Colleagues and friends and fellow classmates from 
Duke and from Stanford are also here.
    Over my career, I have worked on cases that have assisted 
more than 90 individuals in leaving their victimization, and in 
many cases, those individuals participated in the process of 
bringing their exploiters to justice. I have worked with and 
trained Federal, State, and local law enforcement. I have 
partnered with NGOs, nongovernmental organizations, faith 
groups, and concerned citizens in Georgia who provide services 
to victims.
    Finally, I have educated jurors and judges that modern 
slavery often does not involve locks on the doors or victims 
who are willing to come forward. Human trafficking involves 
more subtle forms of exploitation and coercion.
    Our goal, everyone in this room who cares about this fight, 
is to ensure the dignity of all individuals. Human trafficking 
in all its forms, whether forced labor or sex trafficking, is 
modern slavery, and it is one of the greatest human rights 
causes of our time. We must assume our responsibility to stop 
this heinous crime and to address the conditions such as 
violent conflict, poverty, and discrimination that contribute 
to making individuals vulnerable.
    With the leadership of President Obama, Secretary Kerry, 
and Under Secretary Sewall, as well as the members of this 
committee who I know are dedicated to this fight, I know we can 
raise the priority of human trafficking and strengthen the U.S. 
leadership on this important issue.
    If confirmed, I commit to using this position passionately 
to advocate for the rights of individuals to be free from 
forced labor or sex trafficking, for victims to have access to 
comprehensive services, for survivors to be empowered to have a 
voice in policy, and for an end to the trafficking in human 
beings.
    If confirmed, I will seek to engage every segment of the 
U.S. Government to integrate antitrafficking policies into our 
Nation's foreign policy goals.
    If confirmed, I pledge to do my utmost to uphold the 
integrity of the annual Trafficking in Persons Report and its 
tier rankings, including by ensuring that facts from the field 
are accurately presented in the report. The report is respected 
around the world and used in countless countries to increase 
prosecutions, enhance protections, and increase prevention of 
the crime.
    If confirmed, I pledge to work closely with the many 
nongovernmental organizations and stakeholders doing critical 
work in this arena and partner with those in the business 
community who seek strong policies that ensure humane labor 
practices.
    I would like to close with the story of Carolina, a 
survivor I had the chance to know while I prosecuted her 
trafficker. Carolina was 16 when Juan Cortes Meza romanced her 
in Mexico, promising her a better life here in the United 
States. Instead, Cortes Meza smuggled Carolina across the 
border and gave her the most shocking news of her life. He 
expected her to sleep with 20 to 30 men a night in his high-
volume, low-cost prostitution business. At first, he told her 
it would only last until her smuggling debt could be paid. Then 
he told her it was the only way she could make money. Then when 
his deception and coercion were insufficient, he beat her to 
force her to continue.
    I had the privilege of being with Carolina as she bravely 
spoke to the Federal judge who heard her case, sharing her pain 
and describing how she cried every night. Only the walls could 
hear my cries is what Carolina told him. That day at trial, 
Atlanta heard Carolina, and today sharing the story with you, 
the United States hears Carolina. The indelible memory of her 
and of survivors like her fuels my commitment to 
antitrafficking work. There are many people in this room and 
listening today who are as passionate as I am. Each of us plays 
a part in this connected fight in helping survivors worldwide 
and in supporting governments, nongovernmental organizations, 
and citizens to end modern slavery. I so look forward to 
working with the members of this committee and others in our 
shared fight.
    Thank you again for your consideration, and I look forward 
to answering any questions that you have.
    [The prepared statement of Ms. Coppedge follows:]

                  Prepared Statement of Susan Coppedge

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for this hearing to consider my nomination as 
Ambassador at Large to Monitor and Combat Trafficking in Persons. I am 
honored by this opportunity to appear before you, as I am honored and 
humbled by the confidence President Obama and Secretary Kerry have 
placed in me to serve our Nation in continuing the fight against human 
trafficking in the world.
    I want to thank Kari Johnstone, Carl Fox, and the team at the 
Office to Monitor and Combat Trafficking in Persons. Kari has been 
Acting Director since Ambassador Luis CdeBaca, my former DOJ colleague, 
departed the office, and she has done a wonderful job. The entire TIP 
Office has their hearts in the fight against human trafficking and 
stands ready to help me settle into the State Department.
    I want to acknowledge my husband, Lorenzo Amato, who has been so 
wonderfully supportive of me and whose love for me and our children 
enables me to undertake the awesome responsibility of the position for 
which I have been nominated. My father Warren Coppedge is also here; 
unfortunately my mother and brother could not be here and we thought it 
best if my daughter, Lilliana who is seven, and my son Sebastian, who 
is three, stayed home today. I could spend days telling you of the 
love, support and guidance my parents have given me and the innumerable 
ways that they have made me the person I am. I certainly inherited the 
gift of gab from both of them and also an understanding of how 
important it is to serve. This lesson is summarized by a bumper sticker 
my father has on his car: ``whatever you do to the least of these, you 
also do to me.''
    My parents instilled faith and a call to service in all of their 
children including my sister, Elizabeth Coppedge Henley, who is a 
Methodist minister and who is here today with her family, as are 
friends and colleagues from the U.S. Attorney's Office in Atlanta, as 
well as friends and fellow classmates from both my undergraduate alma 
mater, Duke University, and my law school, Stanford University. There 
is also a large group back in Atlanta and my hometown of Dalton, GA, 
saying prayers for me and the work I hope to undertake, with the 
support and confirmation of the United States Senate.
    I want to thank Senator Isakson for being here to introduce me to 
the committee today and to Senator Max Cleland who could not be here 
but has been a vocal supporter of mine. I hope the bipartisan support 
will continue through this Senate confirmation process and, hopefully, 
as we work together in the future.
    As a federal prosecutor in the United States Attorney's Office for 
the Northern District of Georgia, I have been dedicated to the fight 
against human trafficking for 14 years. In 2002, I tried my first human 
trafficking case, serving as second chair to my wonderful colleague, 
Janis Gordon. This first case is an example of how a community can 
drive action on behalf of government officials. It started in 2000 with 
a juvenile court judge who wrote an editorial in the Atlanta Journal 
Constitution decrying the ``alarming increase'' of the commercial 
sexual exploitation of girls based on her experience with 14, 15, and 
16 year olds coming into her court on prostitution charges. These 
children's bonds to get them out of jail were paid repeatedly by the 
same group of men, and those men did not face any criminal 
repercussions themselves. The judge's editorial ignited a group of 
citizens to take up this issue and galvanized then-U.S. Attorney 
Richard Deane and other dedicated law enforcement officials with the 
Federal Bureau of Investigation and the Atlanta Police Department. 
Thirteen human traffickers were indicted under federal charges; 11 pled 
guilty and 2 went to trial and were convicted by a jury. That was my 
first time meeting victims of modern slavery: teenagers who at 16 had 
been punished in juvenile court with a fine for prostitution and then 
released to the very traffickers who exploited them. I am so proud to 
have been a part of that first federal case in Atlanta and an advocate 
for justice for those young girls. This case earned the two most 
culpable traffickers prison sentences of 30 and 40 years and set me on 
the path to be here in front of you today.
    Since then I have indicted 49 traffickers in cases involving both 
American and foreign-born children and young women, victims of both sex 
trafficking and labor trafficking. Over my career, I have worked on 
cases that have assisted more than 90 people in leaving their 
victimization and, in many cases, those individuals participated in the 
process of bringing their exploiters to justice. I have worked with 
federal, state, and local law enforcement in the fight against human 
trafficking. This meant, in the early days, conducting training for law 
enforcement as to what human trafficking was and the warning signs they 
might see. It also meant partnering with nongovernmental organizations, 
faith groups, and concerned citizens in Georgia who provided services 
to victims of trafficking by helping them find safe housing, finish 
school or obtain their GEDs, and apply for visas provided by the U.S. 
Government to foreign-born victims of trafficking. Finally, it has 
meant educating jurors and judges that modern slavery often does not 
involve locks on the doors or victims who come forward, but more subtle 
forms of exploitation and coercion that cause victims to be deprived of 
their freedom, their ability to say ``no, I don't want to do this 
work.''
    Even though I may sound a bit regional to those Senators not from 
Tennessee or Georgia, I have been engaged on the frontlines in the very 
antitrafficking efforts the State Department encourages foreign 
governments to pursue. Based on my extensive experience combating 
trafficking here in the United States, I have trained foreign law 
enforcement in Argentina, New Zealand, and Thailand. I have also worked 
with the United Nations Office on Drugs and Crime to develop a database 
for tracking human trafficking prosecutions. The message I always seek 
to deliver, whether to foreign governments or to the Rotary Club, is 
that human trafficking cases are some of the most important cases that 
governments can undertake; these cases restore the individuals to the 
freedom and liberty to which all are entitled.
    The U.S. goal, which I know this committee is so dedicated to 
supporting, is to ensure the internationally recognized right of 
individual freedom and the dignity of all persons. Human trafficking in 
all its forms--whether forced labor or sex trafficking--is modern 
slavery, and it is one of the greatest human rights causes of our time. 
We must undertake our responsibility as modern day abolitionists with 
energy and commitment to stop this heinous crime and to address the 
conditions such as conflict, poverty, and discrimination that 
contribute to making individuals vulnerable to enslavement.
    With President Obama, Secretary Kerry, and Under Secretary Sewall, 
we have leaders in the executive branch deeply committed to this 
agenda. We also have strong leadership on this committee from Senator 
Corker and Senators Menendez, Cardin, Rubio, and others who have kept 
the fight against human trafficking a priority for the Senate. I am 
well aware that the strong leadership of an Ambassador at Large is more 
important now than ever, and we should continue our efforts to combat 
human trafficking and lift up those who have suffered in its grip. Not 
only is it simply the right thing to do, it will also enable the United 
States to continue to lead on this important issue.
    Thus--
    If confirmed, I commit to using this position passionately to 
advocate for the rights of individuals to be free from forced labor or 
sex trafficking, for victims of human trafficking to have access to 
comprehensive services, for survivors to be empowered to have a voice 
in policy, and for an end to the trafficking of human beings.
     If confirmed, I will seek to engage every segment of the State 
Department and the rest of the U.S. Government to integrate 
antitrafficking policies into our Nation's foreign policy goals: 
promoting open, resilient, and democratic societies, advancing 
inclusive economic growth, and preventing and mitigating conflict and 
violent extremism. Fighting human trafficking should be an integral 
part of all our engagements with other governments to further our 
nation's values of freedom and liberty.
    If confirmed, I pledge to do my utmost to uphold the integrity of 
the annual Trafficking in Persons (TIP) Report and its tier rankings, 
including by ensuring the facts from the field are accurately presented 
in the report.
    The annual TIP Report is respected around the world and used in 
countless countries to try to increase prosecutions of the exploiters, 
enhance protections for the survivors, and encourage prevention of this 
crime. Thanks to the hearing held by this committee in August, foreign 
governments will know that the United States Senate and U.S. citizens 
are deeply concerned about human trafficking. This will only help to 
encourage countries to make real progress in fighting human 
trafficking, as I hope to do.
    If confirmed, I pledge to work closely with the many 
nongovernmental organizations and stakeholders already in this arena 
who successfully raise awareness, support prosecutions, and offer 
services to survivors.
    If confirmed, I will partner with those in the business community 
who are deeply concerned with the treatment of workers in their supply 
chains and who seek strong legal regimes and policies that ensure 
humane labor practices and facilitate fair markets.
    Lastly, if confirmed, I will do everything within my abilities to 
maintain a close working relationship with Congress and with those 
federal agencies engaged in the fight against human trafficking.
    I would like to close with the story of Carolina. Carolina is a 
survivor I had the chance to know while I prosecuted her trafficker. 
She was 16 when Juan Cortes Meza romanced her in Mexico. He promised 
her that a better life awaited her in the United States, a life where 
he would marry her and they could make a living cleaning houses or 
selling clothes. Instead, Cortes Meza smuggled Carolina across the 
border and then gave her the most shocking news of her life--that he 
expected her to sleep with 20-30 men a night. He forced her into his 
high-volume, low-cost prostitution business. At first, Cortes Meza said 
it would only last until she paid back the smuggling debt. Then he told 
her it was the only way she could earn money in a country where law 
enforcement would not help her and she would end up in jail. Then, when 
his deception and coercion were not sufficient, he beat her to force 
her to continue.
    I had the privilege of being with Carolina as she bravely spoke to 
the federal judge who heard her case. I listened as she shared her pain 
and described how she cried every night. ``Only the walls heard my 
cries,'' she said. That day at trial, Atlanta heard Carolina. Today, I 
share her story in the U.S. Senate and the United States hears 
Carolina. Every victim's pain is our Nation's pain as well. The 
indelible memory of Carolina's cries--and of survivors like her--fuels 
my commitment to antitrafficking work. A commitment to human dignity is 
a commitment to a just world. There are many people in this room and 
listening today who are as passionate as I am. Each of us plays a part 
in this connected fight in helping survivors worldwide, and in 
supporting governments, nongovernmental organizations, and citizens to 
end modern slavery. I look forward to working with the members of this 
committee and others in our shared fight.
    Thank you again for your consideration and I look forward to 
answering any questions you may have.

    The Chairman. Thank you very much for your testimony and 
again for your commitment to this issue. I think you are aware 
we had a meeting last week off the Senate floor. We talked a 
little bit about some of our concerns with the current TIP 
Office. And I realize there is no one there in your position 
and there has not been anyone there since November 2014. But 
the TIP Report tier rankings are reviewed and differences 
adjudicated at the Under Secretary level, as we understand it, 
and ultimately by the Secretary of State. What is your 
understanding of the TIP Office Director in that process?
    Ms. Coppedge. Well, my understanding is that the TIP Office 
Director, the position that I am being considered for, is the 
person who first marshals with the office staff all of the 
facts from the field, who spends the year engaging our 
missions, the State Department's bureaus, citizens, and 
nongovernmental organizations, all report in facts to that 
office. Then the Ambassador, the Director of the office, 
advocates for the role that the TIP Office believes and the 
rankings the TIP Office believes those facts dictate.
    The Chairman. And you will commit to assuring that the 
integrity of that process is there. I will just put it that 
way.
    Ms. Coppedge. Yes, Senator.
    The Chairman. What are some of the kind of things that you 
think can sometimes come into play to keep those TIP rankings 
from being what they should be?
    Ms. Coppedge. Well, I have not been part of the process 
yet. So I am kind of watching from the sidelines. I do not want 
to be a Monday morning quarterback and critique the team on 
Sunday. But I can certainly can commit to you that I will do my 
best to ensure the integrity of the report and to let people 
higher up at the Department know that that report needs to be 
based on facts to uphold its integrity.
    The Chairman. It is our understanding that over time there 
has been a good deal of attrition in the office, I guess 
possibly due to lack of focus and lack of leadership. 
Obviously, you will change that hugely when you assume that 
role. Can you tell us a little bit about what your commitment 
is internally in the office in assuming this position?
    Ms. Coppedge. Senator, as part of the nomination process, I 
have met with the individuals who work in that office, and I am 
very impressed by their dedication to the fight against human 
trafficking. They work hard and they care deeply about the 
issue. And I hope to be a good leader to them and a good 
champion for their report, and I look forward to working with 
the individuals who are there.
    The Chairman. One of the things we all do--I had dinner 
with Senator Perdue last week, and we were talking about the 
fact that just the experience of being in other countries over 
a period of time ends up creating a body of knowledge that is 
second to none. I mean, it is amazing I think what all of us 
have learned by going to other parts of the world, 
understanding culture, seeing what is happening there.
    It is my understanding that the TIP Office has had a 
limited travel budget and because of constraints, many of their 
officers are not out doing those things. Obviously, that 
affects things in a big way. I just wonder what your take on 
that is and what your commitment to people getting out and 
seeing on the ground firsthand what is happening.
    Ms. Coppedge. Well, I do think it is very important to get 
into countries, particularly ones that are in a position to 
make a difference if they have a visit from U.S. officials. And 
I am committed to going to countries and doing that. And I do 
believe that meeting people face-to-face and building those 
relationships, working not just with governments but with 
citizens and nongovernmental organizations in the country, who 
frequently supply information to the TIP Office, meeting those 
individuals so that they know they have an avenue of 
communication to reporting facts in the field as well is very 
important.
    And I think I am well situated, having been on the front 
lines in prosecuting these cases myself, to talk to people 
about the hurdles and the obstacles and suggest ways that we 
have overcome them here in the United States. And I look 
forward to doing that in the field.
    The Chairman. And what is your understanding of how the 
action plans for each country is developed?
    Ms. Coppedge. Senator, my understanding is with the 
recommendations that are in the TIP Report that everyone can 
read, that those recommendations form the basis of the action 
plans for the countries. And the United States is certainly 
encouraging other countries to meet those goals and those 
suggestions in the TIP Report to increase their rankings.
    The Chairman. Will you commit to working closely with us on 
the committee and making us aware, if at any time you feel 
other forces are at work which are keeping your voice from 
being heard and the primary reason that you are assuming this 
job is being mitigated because of other forces? Will you work 
with us in that regard and ensure that that is not the case?
    Ms. Coppedge. Senator Corker, I look forward to working 
with this committee because there are so many members on it who 
are passionate and dedicated to the fight against trafficking. 
I look forward to open communications with this committee.
    The Chairman. Well, listen, before I turn to Senator 
Cardin, I just want to say again to have someone who, like most 
of us here know individuals, have met individuals, have 
defended individuals, have caused justice to come about for 
individuals, assuming this role certainly is something that is 
good for our country and great for those who, again, do not 
have today access to justice. And I hope you will take the same 
commitment--I think you will--relative to what you did in the 
case you described earlier. I hope you will maintain that and 
carry that with you to the State Department as you assume this 
position. And I want to thank you for your willingness. I want 
to thank your family for their willingness. I understand they 
may actually move to Washington if you assume this role. We 
thank them in particular for that.
    And with that, I will turn to Ranking Member Cardin.
    Ms. Coppedge. Thank you, Senator Corker.
    Senator Cardin. Did Senator Isakson know he might be losing 
some Georgians? [Laughter.]
    Senator Isakson. We know how to deal with that. [Laughter.]
    Senator Cardin. Well, let me again welcome you.
    I just really want to underscore the point that Chairman 
Corker made. As I understand the process on the rankings, the 
work that you do in your office working with missions around 
the world and working with NGOs and gathering the facts from 
every country--the initial work is done and accumulated by your 
office. That then works its way to determinations as to whether 
there is any disagreement as to the ranking for the coming year 
on the TIP Report. My understanding is that normally for about 
80 or more percent of the countries there is no disagreement, 
and those rankings just routinely are accepted by the Secretary 
and included in the annual TIP Report.
    But there are a number of countries where there are some 
disagreements, and the disagreements usually occur between your 
office and the regional Secretaries working through the various 
missions. That then is elevated to the Under Secretaries, and 
the Under Secretary for Civilian Security, Democracy, and Human 
Rights is advocating on behalf of your position, and the 
regional secretaries will usually advocate on behalf of the 
mission.
    Your role is to take a look at the human rights issue of 
trafficking. The regional Secretaries may have other areas of 
concern and relationships with countries that they must take 
into consideration. Trafficking is just one of the agenda 
items.
    So the point I just really wanted to underscore, as that 
process moves forward, it is critically important that the 
Director have input into the Under Secretary for Civilian 
Security, Democracy, and Human Rights so that the principal 
objective used in determining the rankings is progress made in 
trafficking. And that is where we need a strong advocate and an 
effective advocate.
    In order to achieve that, you need to build support for the 
trafficking agenda. And I could not help but think as you were 
talking about Carolina that that is exactly what you need to 
do. You got to put a face on this. When I talk about tens of 
millions of victims, people say, okay, what else is new? But 
when you talk about an individual who has gone through the 
tragedy of being trafficked, that helps people to understand 
why this is important.
    So I guess I would urge you to look at creative ways where 
you can build stronger support so that your recommendations 
will have stronger weight with the Under Secretaries as they 
make their recommendation to the Deputy Secretary and the 
Secretary of State. And you need to find, I hope, creative 
ways, working with the NGO community, to be able to personalize 
this. It affects all of our communities. And we can do 
something about it. And it starts with an objective evaluation 
of every countries' efforts and what they can do to improve 
their efforts.
    So I guess my point is that--I know you are committed to 
this, but I want you to understand you are going to reach some 
barriers in getting the results that you want because we have 
complicated relations with countries around the world, and 
there are not just human rights issues, there are other issues.
    We have a meeting with the Chinese head of state coming on 
Friday, and I would hope that human rights would be top on the 
agenda. But somehow I got a feeling that cybersecurity and 
maritime security and all those other issues are going to be 
talked about at greater length than some of the human rights 
issues that I would like to see elevated in that discussion. It 
is your responsibility in this position to be able to elevate 
the trafficking issues as these debates takes place well before 
the decisions on the rankings.
    Just get your reaction as to how you will try to carry that 
out.
    Ms. Coppedge. That was a great pep talk for me going into 
the job on things I need to consider and work diligently at. I 
know that relationships are not built just at the time the TIP 
Report comes out and that I want to build those relationships 
throughout the year at the State Department. And I want to 
integrate human trafficking along with those other issues that 
you mentioned because there are multiple parts to U.S. 
diplomacy, and human trafficking needs to be an integral part 
and one of those parts that is considered.
    Senator Cardin. And as Senator Corker said, look, you have 
a lot of friends on this issue. You have friends in the United 
States Senate. You have friends in the NGO community. Just 
utilize the strength we have. I am proud that this issue has 
gained a great deal of strength through advocacy groups around 
America and around the world. And you need to be the leader to 
focus us on where we can be the most effective in helping you. 
If we know where problems exist in the political structure to 
make progress, then we can help you in doing that. On the other 
hand, if you feel, well, that is not your role, we may miss an 
opportunity. Your independent, objective information to us 
becomes critically important.
    Ms. Coppedge. Thank you, Senator.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin. I think what he is 
saying--I will say it in a little different way. Look, we are 
going through a period of time where this issue is--I am 
sorry--not a focus. In Syria, we have not done what we said we 
would do, and people are dead and people are leaving. In 
Malaysia, I do not exactly know what has happened, but I do not 
think the TIP Office was heard at all. I do not think the issue 
of trafficking in persons has even been on the radar screen in 
modern times. I am sorry. It is a blight on our country. And 
you are entering at a time when all of us want to see that 
change. I think that is what he just said. [Laughter.]
    But with that, Senator Isakson.
    Senator Isakson. Well, let me follow up on that, Mr. 
Chairman and Ranking Member, and tell you in preparing to 
introduce Susan, I was reading some of her history in terms of 
cases, and the Cortes Meza case and the face she put on that 
case, which you bragged about--one thing I did not say in the 
introduction, which I should have--and she probably would not 
volunteer on her own. But in her 15 years at the Northern 
District of Georgia, she has spent a lot of time advocating on 
behalf of people who are victims of trafficking. In fact, the 
Rotary Club of Roswell, which is the second-largest Rotary Club 
in Georgia, where David McCleary has heard her speech at that 
Rotary Club about 5 or 6 years ago I think--they adopted human 
trafficking as their number one issue. That Rotary Club has 
raised money, has traveled across the country, has worked to 
try and raise the awareness of that. And I think that is what 
you both are saying. It is out of sight and it is out of mind.
    And, Susan, you have a tremendous responsibility. We are 
politicians and we make a lot of speeches and we can talk about 
these things, but sometimes they heard, sometimes they are not. 
But if you can tell those stories of those 21 cases you 
prosecuted in the Northern District of Georgia, like Pipkin and 
like Cortes Meza, and tell the stories about really what 
happens to these people, it would do a world of good to help us 
raise that visibility as well.
    Secondly, in reading background material, you have taught, 
as I understand it, in New Zealand, Australia, and other 
countries with regard to human trafficking. Have you worked 
with their judiciaries or their legislatures or their 
prosecutors? Tell us about that.
    Ms. Coppedge. Yes, Senator. I have worked training law 
enforcement both locally in Georgia, federally in the United 
States, and internationally in New Zealand, Thailand, and 
Argentina. And I was sent there probably with State Department 
money to talk to law enforcement about the difficulties of 
investigating and prosecuting these cases. Law enforcement 
everywhere is overwhelmed with people coming forward to them to 
report crimes, where human trafficking victims do not always 
come forward. So there is a lot more work on law enforcement's 
part to uncover the crime. And then the victims are often 
afraid of law enforcement or ashamed of what has been happening 
to them. And so they are fearful of coming forward and working 
with law enforcement.
    So when I was in those countries, I was talking to law 
enforcement about how you move through some of the obstacles in 
prosecuting those cases. I was also stressing a victim-centered 
approach in the investigations and prosecutions. We never had a 
case where a victim was not willing to cooperate in the Atlanta 
U.S. Attorney's Office, but if a victim did not want to pursue 
a case, it is the victim's rights that should prevail in that 
instance.
    Senator Isakson. You know, sanctuary cities have gotten a 
lot of publicity in the United States over the incident that 
took place in San Francisco. But am I correct or incorrect? 
There are some sanctuary countries for human traffickers that 
exist today on the face of the earth.
    Ms. Coppedge. Senator, I am not aware of that. I know there 
are some countries that do not comply with the minimum 
standards, and they are reported in the Trafficking in Persons 
Report.
    Senator Isakson. And that is the kind of information we 
want to make sure we have the very best information possible in 
the TIP Report so we do not mask what might be somebody 
actually harboring human trafficking elements.
    Ms. Coppedge. Yes, Senator.
    Senator Isakson. We are proud of you.
    Ms. Coppedge. Thank you.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ms. Coppedge, congratulations on your nomination. And I 
must underscore that if Senator Isakson comes and vouches for 
you, it has an enormous weight, at least with this Senator, and 
I think that is true for many others. I do not think he has 
just done that because you come from Georgia. So that is very 
meaningful.
    You and I had a good conversation. I just want to follow up 
on a couple of the things that we talked about.
    First of all, while I know you were not there, I hope you 
have an understanding of why many members of this committee 
have a concern about the 2015 TIP Report as it relates to 
Malaysia, from my perspective as it relates to Cuba and other 
countries where the narrative of why a country was upgraded 
from a Tier 3 worst standard to a Tier 2 just does not fit the 
upgrade. So without commenting on whether it is right or wrong, 
you have an understanding as to why members have a concern 
about the 2015 TIP Report. Is that fair to say?
    Ms. Coppedge. Yes, it is, Senator. I have been following 
all of your hearings on this matter and reading the articles as 
well.
    Senator Menendez. Okay. Hopefully it is not in the reruns 
at night on C-SPAN where you are--you know.
    Let me ask you. Knowing that, knowing what the concerns are 
as it relates to the upgrade, how do you plan to appropriately 
but nonetheless push back?
    I am looking for someone who is going to be a staunch 
advocate for the work that the people from the TIP Office do. 
They do an incredible job. I think it is difficult, when your 
work gets crushed from up above, to still have the passion and 
the commitment. It has to be diminished somewhat. And so this 
office needs a leader who will not only lead in the work and 
make sure that the information is as full and as transparent 
and as powerful to reflect the realities of a given country, 
but it also needs a leader at the table inside of the 
Department where, as has been said by Senator Cardin, there are 
competing interests. And personally, as much as I might 
disagree, I would be more respectful of the competing interests 
being said that, look, we need, for example, Malaysia in the 
Trans-Pacific Partnership. We think that is important to our 
pivot to Asia. I might disagree with that, but at least I 
respect that. We need this country because we have a security 
objective. So I can understand those. I cannot understand when 
we are told carte blanche that in fact there are upgrades 
because they did the right thing. I find that really hard to 
believe.
    So with that as the basis, I want to get a sense of what 
you will do internally in the State Department in this process. 
When your people have come to conclusions and now it is time to 
advocate, how strong of an advocate will you be, understanding 
that you will have superiors that may have a different view. I 
just want to get a sense of that from you.
    Ms. Coppedge. Thank you, Senator Menendez.
    I will be a champion for the individuals in the TIP Office 
and the work that they do, and I will be that champion year 
round. Part of my job as a Federal prosecutor is to take the 
facts, present them to a jury of 12 people, and convince them 
that those facts are a violation of the law. And that is very 
similar to the work that the TIP Office does. They gather facts 
from the field. They present those to the State Department 
individuals who make the decision and convince them where the 
tier rankings should be. I view my job is to speak to truth to 
power, and if power does not like to hear it, then I can be 
outranked clearly in the State Department, but I will speak 
that truth.
    Senator Menendez. So let me ask you. One thing is 
presenting facts to a jury. The other thing is did you ever in 
your 15 years of experience at the U.S. Attorney's Office face 
a set of circumstances--and I do not need the specifics of it, 
but I just want to get a sense--face a set of circumstances in 
which something was taking place that you felt that you had to 
speak out. Look, it could have been something that should have 
been prosecuted, that there was a judgment maybe not to 
prosecute, or something that was going to be prosecuted that 
you felt there was a judgment that it should not be prosecuted, 
or anything like that that you had to face in those 15 years 
that was not the easy flow of saying okay, but that you 
actually faced a moment in which you felt you had to tell your 
superiors I think this is the wrong judgment.
    Ms. Coppedge. I have told my superiors that, Senator. I am 
a squeaky wheel and I present the facts in the way that I see 
them and I argue from my position very forcefully. Luckily in 
the U.S. Attorney's Office in Atlanta, we have had excellent 
leadership that recognizes that no one case is worth tarnishing 
the reputation of justice in our community. So the office has 
been very supportive when I have spoken up and felt strongly 
about issues.
    Senator Menendez. Let me ask you. I heard your answer to 
Senator Corker, but I want to understand. If this committee and 
members ask for information, will you be willingly disposed to 
give that information to members of this committee as we are 
making decisions?
    Ms. Coppedge. I am committed to open dialogue with this 
committee throughout the year not just right before the TIP 
Report is released, and I look forward to working with the 
committee.
    Senator Menendez. And so am I to take away from your 
answers that underneath that Southern genteelness that I gather 
from you there is an iron will to do what is right here?
    Ms. Coppedge. There is an iron will to do what is right 
because of the individuals that I have met in trafficking 
cases. They do not have a voice. You Senators are their voice. 
I will remind you of that just as you have reminded me of my 
responsibilities.
    Senator Menendez. Then with that understanding, I look 
forward to supporting your nomination.
    Ms. Coppedge. Thank you, Senator Menendez.
    The Chairman. I might add behind that New Jersey tough 
accent----
    [Laughter.]
    The Chairman [continuing]. There is a guy that actually 
cares about people in this type of situation.
    Senator Menendez. Mr. Chairman, I am glad you are an 
interpreter for the committee. [Laughter.]
    The Chairman. You know, in her case, I need to be one.
    Let me just say we did have a meeting at the end of the 
week--a closed meeting. We did that for the benefit of the 
State Department so that we would not have media there and 
other things. I have, since that time, asked for three specific 
pieces of information from them, just for you to know because I 
know people will be asking you that in the hallway, to really 
understand what has happened. Instead of it being sweeping, 
three very specific things that came up actually during Tony 
Blinken's testimony. I do hope they will provide that like now. 
We are asking for them to reply immediately. This should not 
take any time to get to us. And if not, then I would like to 
talk to the committee about next steps to force that to happen. 
I just wanted to make you all aware. I think most of us are 
very unsatisfied with the testimony that occurred last week.
    With that, Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    Welcome, Ms. Coppedge. Thank you for the courtesy of our 
visit last week.
    For the record, I want to remind those of us here that this 
issue could have been swept under. We could have taken that TIP 
Report, put it on a shelf, and let it sit there. I want to 
commend the ranking member, Senator Cardin, and our chairman, 
Senator Corker, for not letting that happen. And I think the 
fact that you have four of the most distinguished Senators of 
our time sitting here before you today--I am not one of those. 
These four gentlemen are very dedicated to this issue I know 
personally. And they have got other things to do this morning, 
but they are here because of this nomination and how important 
it is. And I applaud all of them for that.
    I am honored, Mr. Chairman, that our nominee today is from 
Georgia. I have watched her for the last decade attack this 
with a vigor. I think your question, Senator Menendez, should 
have been directed toward her husband to see if she really has 
the iron will. [Laughter.]
    I suspect that she does.
    But I applaud the work you have been doing. You are coming 
on a new level now and a new stage.
    And I want to clear a couple things for the record that we 
talked about last week. In my career in business, I have been 
very sensitive to this idea of taking advantage of the weak in 
our societies around the world. Every culture is a little 
different. This is a major impediment to me for international 
trade. And one of the things that makes us one world and a 
peaceful world is the fact that we do not take advantage. We do 
not stand for people who take advantage of the weak among us. 
And yet, children, for the last 50 years, have been definitely 
victims of global issues and power struggles around the world.
    Today in this 2015 report--I am not asking for your opinion 
about the 2015 report, but I do want to talk to you about 
children soldiers. Child labor has been a topic for the last 50 
years as globalization has taken root, and so a lot of progress 
has been made. In children soldiers, though, I am not so sure 
that much progress has been made. There are eight countries in 
this TIP Report. Countries like Burma, Congo, Nigeria, Somalia, 
South Sudan, Sudan, Syria, and Yemen are listed as countries 
who have forces that openly have children soldiers. I know you 
have a sensitive spot in your heart about this. This is a 
little bit different level than what you have been dealing 
with. And not all of these countries are on this year's 
report's worst level.
    So my question is, as we look forward, will the fact that 
Tier 3, countries that have children soldiers--is that a major 
issue with regard to countries being placed on Tier 3?
    Ms. Coppedge. Well, Senator, child soldiering is certainly 
a horrible issue that everyone is against in this room. And I 
am glad that you brought it up. And the TIP Report does list 
every year countries that engage children as soldiers or 
children as workers in their armies or armed forces, and that 
is required by the Child Soldier Prevention Act, which governs 
this area. It is listed in the TIP Report, and it is certainly 
one of the factors that is evaluated in the report when looking 
at the tier rankings.
    Senator Perdue. Are you hopeful we can eliminate that?
    Ms. Coppedge. I am hopeful we can do lots of things, 
Senator. That is on the list. Yes, sir.
    Senator Perdue. Thank you.
    Along with that, you have heard discussed here today--and I 
think one of our concerns looking at this 2015 report is the 
efficacy of the report. It should be the gold standard that we 
and others can depend on when we evaluate countries in terms of 
where we put businesses, how we deal with them in the State 
Department, and how we think about them here in Congress. But 
we now learn that in this report in 2015, there are several 
countries that just do not comply. Several years, Germany has 
not provided information. Now, we have no reason to suspect 
they are not a continuing Tier 1 operator, but the fact that 
they are not providing information gives me pause. The fact 
that India again has not provided information--they are still 
solidly a Tier 2 player in the report.
    How will you in your role help to maintain the efficacy of 
this report not just to make sure it is not politicized but 
also to make sure that the participating countries provide the 
information that is so important for you to make your 
determination?
    Ms. Coppedge. So one of the factors that I understand the 
TIP Report considers is whether the government provides 
information and data because that is the best source of 
prosecutions and support being provided to victims. And if no 
information is forthcoming, then the TIP Report and the office 
has to assume that they are not making efforts in that area. So 
I know that that is built into the review of the report.
    I also understand that we get information from civil 
society in a country and NGOs as well, but certainly 
governments are encouraged and requested to provide 
information.
    Senator Perdue. You know, there is a reported tension 
between JTIP and the regional bureaus of State and U.S. 
missions overseas. They go back to JTIP's creation back in 
2001. Some observers contend that while JTIP is praised for 
raising the policy profile of human trafficking, its ability to 
project its antitrafficking message as a priority is hampered 
by its perceived unequal footing vis-a-vis the regional bureaus 
at State.
    How will you resolve this? I mean, this goes across all the 
responsibilities at State, it looks like. How will you weigh in 
to make sure that does not negatively affect our ability to 
evaluate these countries?
    Ms. Coppedge. Senator, I will work to build relationships 
with regional offices and with our missions in the field. They 
are also a great source of information to the TIP Office about 
what is going on with respect to trafficking in that country. I 
want to get the trafficking message clearly out to the regions 
and the missions and just build those relationships up so that 
we are on equal footing with other offices there. Obviously, 
there are competing priorities, as Senator Cardin recognized, 
but JTIP and the TIP Office needs to have a loud voice at the 
table and someone that individuals are willing to work with, 
and I will strive to be that person.
    Senator Perdue. Well, thank you for your answers, and 
congratulations on your nomination.
    Mr. Chairman, I look forward to fully supporting this 
nominee and her impact on this report going forward. Thank you.
    The Chairman. Thank you very much.
    I do not think there are other questions. I think people 
have had time to meet with you personally and very much 
appreciate your willingness to do this.
    The record will remain open for questions through the close 
of business Wednesday. If you would answer those promptly, it 
helps in you ascending to this position. I know you will do 
that. And again, thank you and your family's willingness to do 
this.
    With that, the meeting is adjourned. Thank you.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


Responses of Susan Coppedge, Nominated to be Director of the Office to 
   Monitor and Combat Trafficking, to Questions from Members of the 
                               Committee

                director-designate coppedge's responses 
                    to questions from senator rubio
    Question. Of the 20.9 million victims worldwide, the ILO estimates 
that 68 percent are trapped in labor trafficking. Yet, only 5 percent 
of the convictions reported worldwide last year were labor cases. Labor 
traffickers operate with near impunity across the globe, in large part 
because of the increased resources it takes to recognize, investigate 
and prosecute these cases.

  <diamond> How can J/TIP help build this expertise globally and ensure 
        that more labor cases are identified and prosecuted?

    Answer. I am deeply concerned with the low rate of prosecutions and 
convictions for labor trafficking crimes around the world. If 
confirmed, it will be a key priority for me--including through the 
dedication of resources--to advocate for increased prosecutions and 
convictions in these cases.
    Labor trafficking takes many forms including bonded labor, domestic 
servitude, and forced child labor, and it occurs in many industries and 
work environments--from formal to informal sectors, isolated mines to 
urban businesses, whether legal or not. One important area that I will 
prioritize, if confirmed, is government enactment and implementation of 
laws that encourage prosecution of suspected traffickers and afford 
sufficient protections for victims. I will also lead robust engagement 
efforts to press governments to implement fully their own laws and 
international commitments.
    A TIP Office under my direction would continue to work hard to 
further the U.S. Government's leadership in combating human trafficking 
in all its forms. In addition to strong diplomacy aimed at pushing 
governments to increase prosecutions and convictions, I will 
strategically program resources and forge close relationships with 
international organizations and NGOs, as well as civil society groups, 
to address the drivers of human trafficking. If confirmed, I will also 
encourage business leaders to adopt codes of conduct for employees 
prohibiting the purchase of commercial sex and the use of unscrupulous 
labor practices in their supply chains. I will reach out to community 
leaders to foster the belief that it is everyone's responsibility to do 
their part to reduce the demand for human trafficking.
    I am committed to combating human trafficking in all its forms and, 
if confirmed, I will push governments around the world to do the same.

    Question. Worldwide, convictions dropped 23 percent last year from 
5,776 to 4,443. With an estimated 21 million victims worldwide, yet 
fewer than 45,000 victims reported to law enforcement last year and 
fewer than 4,500 convictions worldwide, it is a crime of very low risk 
to the traffickers.

  <diamond> How can J/TIP leverage its diplomatic power to increase the 
        number of convictions over the coming year?

    Answer. The low number of trafficking prosecutions and convictions 
is a problem that I have worked my entire career to change and is one 
that I am deeply committed to addressing if confirmed as Ambassador. I 
will also continue the Department's robust and multifaceted efforts to 
address global shortcomings in protecting trafficking victims and 
prosecuting and convicting traffickers, and I will use my position to 
make clear to governments around the world that it is a uniquely 
governmental responsibility to hold perpetrators accountable for these 
crimes.
    The annual Trafficking in Persons (TIP) Report is an important tool 
to this end. The Department publicly documents government efforts to 
identify and protect victims and prosecute and convict traffickers. I 
understand Department officials engage foreign governments year round 
to identify the root causes of inadequate victim protection and law 
enforcement efforts, and urge authorities to take appropriate action to 
address deficiencies. The TIP Report is used by a range of stakeholders 
around the world to encourage government action. If confirmed, I will 
ensure the TIP Report continues to be the gold standard in assessing 
government efforts to combat human trafficking and prompting tangible 
progress around the world. I will do my utmost to ensure that the 
report remains an effective tool in pushing governments to address 
their deficiencies in this regard.
    Another tool is the foreign assistance administered by the Office 
to Monitor and Combat Trafficking in Persons. I know firsthand that 
such assistance plays an important role in supporting government 
efforts to address this crime and the needs of victims around the 
world. If confirmed, I will ensure these resources are used effectively 
to build the capacity of government law enforcement and victim 
protection efforts.
    Governments are ultimately responsible for holding traffickers 
accountable and protecting trafficking victims. If confirmed, I will 
use the tools at my disposal to urge all governments to fulfill this 
responsibility.

    Question. For several years, antitrafficking activists have raised 
concerns about the politicization of the TIP Report--namely that 
countries are sometimes upgraded undeservedly when it serves other 
political interests for the U.S. Government. Each time this happens, it 
sends a strong signal overseas that politics is more important than 
combating trafficking.

  <diamond> Given the widely held perception that several countries 
        were undeservedly upgraded in this year's report for political 
        reasons, what will be done to rebuild the credibility of the 
        report?

    Answer. I have closely followed the release of this year's 
Trafficking in Persons (TIP) Report and the concerns expressed by 
members of this committee regarding the tier ranking decisions and the 
integrity of the report.
    Congress created the TIP Report and the tier rankings to provide a 
means for the Secretary both to make objective assessments of 
government efforts to combat human trafficking and to publish the 
conclusions of those assessments in an effort to prompt tangible 
progress around the world. Since 2001, the TIP Report has helped make 
antitrafficking efforts an essential component of United States foreign 
policy. It is widely--and rightly--recognized as the ``gold standard'' 
in assessing government efforts around the world and urging 
improvements. I understand the Department strives to make the report as 
objective and accurate as possible, documenting the successes and 
shortcomings of government antitrafficking efforts measured against the 
minimum standards established under U.S. law. The power and influence 
of the report depends on maintaining the integrity of tier rankings and 
the accompanying country analyses.
    If confirmed, I will be a visible and vocal champion of therReport 
within the Department and I commit to ensuring its impartial standards 
and using the full range of resources at my disposal to maintain those 
standards. I will also encourage the Department to continue to use the 
report to elevate this issue on the global stage, to guide its 
antitrafficking programming around the world, and to encourage foreign 
governments to implement recommended improvements in their efforts.

    Question. In the 2008 reauthorization of the TVPRA, the State 
Department was authorized to suspend certain categories of U.S. visas 
(A-3/G-5) used for guest workers at specific diplomatic missions or 
international organizations that have abused or exploited such workers 
in the past. Despite several cases, the State Department has yet to 
suspend any countries A-3/G-5 visa programs for abuse.

  <diamond> If confirmed, will you ensure that this portion of the 
        TVPRA is enforced?

    Answer. The fair treatment of domestic workers employed by members 
of foreign missions in the United States is a matter of particular 
importance to the State Department. If confirmed, I will take 
allegations of domestic worker abuse very seriously.
    It is my understanding that an internal Department working group 
convenes to review allegations of domestic worker abuse and brings them 
to the attention of the relevant foreign chief of mission, with a 
requirement to review the allegations and report back to the Department 
promptly regarding the findings.
    The Department also regularly reminds foreign chiefs of mission of 
their obligations toward domestic workers, as well as their obligation 
to comply with U.S. laws and Department requirements relating to the 
employment of domestic workers, including the suspension provision in 
the 2008 TVPRA.
    If confirmed, I will do my utmost to ensure the Department 
continues to review every allegation of domestic worker abuse that is 
brought to its attention and take appropriate action. I will support 
Department of State efforts to work with the diplomatic community on 
matters related to U.S. investigations into alleged abuse and 
compliance with U.S. requirements relating to the employment of 
domestic workers. If confirmed, I will take seriously the suspension 
requirements of the 2008 TVPRA and make recommendations to the 
Secretary accordingly.

                               __________
                director-designate coppedge's responses 
                    to questions from senator markey
    Question. Trafficking in persons is a crime that has a devastating 
role in the fishing and maritime industry. U.S. companies should bear 
some responsibility to prevent goods secured through the use of human 
trafficking victims from accessing U.S. markets.

  <diamond> Please describe how the State Department, in coordination 
        with other relevant U.S. Government agencies, is conducting 
        outreach to U.S. companies and suppliers to identify and 
        mitigate sources of goods supplied with the use of trafficking 
        victims, particularly in the fishing industry.

    Answer. The Department of State's Office to Monitor and Combat 
Trafficking in Persons (TIP Office) has long documented the risks of 
human trafficking in the seafood sector. In recent years, a growing 
body of reporting has documented forced labor on coastal and deep sea 
fishing vessels, as well as in shrimp farming and seafood processing. 
In an industry where a largely migrant workforce faces harsh 
conditions, isolation at sea, and environmental factors that are 
forcing boats to travel greater distances for longer periods of time, 
the risks of trafficking in persons loom large. The 2015 annual 
Trafficking in Persons Report noted that 54 of 188 country narratives 
referenced forced labor in the seafood sector.
    It is my understanding that the Department is working with the 
business community to support companies in addressing the problem of 
forced labor in their supply chains, and also to leverage additional 
avenues of pressure on governments to establish and enforce clear 
antitrafficking laws and regulations that ensure respect for human 
rights and fair trade practices.
    I also understand that the Department of State regularly meets and 
consults with a variety of companies--including from the fishing, 
electronics, and travel and tourism industries--that have expressed an 
interest in addressing the potential vulnerability of human trafficking 
in supply chains. The TIP Office convenes meetings with industry in 
coordination with other federal agencies, such as the Department of 
Labor, the Office of Management and Budget, and USAID. Specifically 
related to seafood, the TIP Office has convened NGOs, multinational 
corporations and associations, government officials, and leading 
academics to discuss the issue of human trafficking in the seafood 
sector, share model approaches to preventing such forced labor, and 
forge new partnerships. TIP Office staff members have also given 
presentations, met with seafood suppliers, and traveled with an 
industry coalition to Thailand to gain further insight, together with 
U.S. mission personnel, to examine the risks of human trafficking in 
the fishing industry as well as consider solutions to address concerns.
    Following the release of Executive Order 13627, Strengthening 
Protections Against Trafficking in Persons in Federal Contracts, the 
Senior Policy Operating Group's Procurement and Supply Chains Committee 
and its members participated in a lengthy process for reviewing public 
comments and developing amendments to the Federal Acquisition 
Regulation (FAR) implementing both the EO and Title XVII (Ending 
Trafficking in Government Contracting) of the 2013 National Defense 
Authorization Act. Committee members also participated in updating 
training for Federal Acquisitions personnel across the U.S. Government.
    I know that to support this work, the TIP Office entered into a 
cooperative agreement with Verite, an NGO leader in supply chain 
management, to gather data on the areas of greatest risk of trafficking 
in global supply chains and produced a report on those sectors and 
commodities with a history or indications of supporting trafficking or 
trafficking-related activities. In addition, under the agreement, 
Verite will develop tools for federal contractors and corporations to 
analyze the risks of trafficking in their supply chains and implement 
ethical sourcing guidelines. The initiative included outreach to 
corporations to solicit expertise and advice to inform the development 
of the tools to be used by federal contractors and businesses. Finally, 
the initiative includes a pilot project to engage seafood sector 
companies and then provide tailored guidance for those companies who 
wish to adopt promising practices consistent with the principles of the 
EO.
    The State Department also chairs the Presidential Task Force on 
Combating Illegal, Unreported, and Unregulated Fishing and Seafood 
Fraud (IUU Task Force), a practice that has significant overlap with 
issues of human trafficking.

    Question. Earlier this year, the State Department named Ghana as 
the first country in which to implement the Child Protection Compacts, 
which have a specific focus to prioritize the rescue of children in 
slave labor conditions and hold perpetrators of child slave labor 
accountable for these crimes.

  <diamond> As the head of the Trafficking in Persons Office, what will 
        you do to ensure that the Ghanaian Government upholds their 
        agreement to focus on the rescue of children enslaved and the 
        arrest and prosecution of perpetrators? Also, how will you 
        ensure that the Child Protection Compacts continue to be 
        implemented in other countries to build successful models for 
        ending child slavery?

    Answer. If confirmed, I will ensure that the TIP Office closely 
monitors activities to implement the first Child Protection Compact 
(CPC) Partnership between the United States and the Government of 
Ghana. I will ask for regular reports noting any progress and obstacles 
toward achieving the jointly developed objectives of enhanced child 
protection, more effective prosecution of child traffickers, and 
prevention of the crime. If the Government of Ghana fails to adhere to 
its responsibilities under the CPC Partnership, the authorizing 
legislation permits the Secretary to suspend or terminate the 
assistance and to reinstate it after corrective action is taken. I also 
expect to engage the Ghanaian ministries participating in the CPC 
Partnership in an annual high-level bilateral dialogue to highlight 
accomplishments and challenges and to chart corrective action, if 
needed.
    I look forward, if confirmed, and should funds become available for 
this purpose, to implementing this unique model of foreign assistance 
by identifying additional prospective countries for such a Partnership, 
conducting appropriate interagency consultations, assessing the 
feasibility and likelihood of success, and negotiating future CPC 
Partnerships. In doing so, I would build on the Office's experience and 
lessons learned through establishing the first CPC Partnership with 
Ghana.

                               __________


                              NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 1, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Robert Porter Jackson, of Virginia, to be Ambassador 
        Extraordinary and Plenipoteniary of the United States 
        of America to the Republic of Ghana
Hon. Harry K. Thomas, Jr., of New York, to be Ambassador to the 
        Republic of Zimbabwe
Julie Furuta-Toy of Wyoming, a Career Member of the Senior 
        Foreign Service, Class of Counselor, to be Ambassador 
        to the Republic of Equatorial Guinea
Dennis B. Hankins, of Minnesota, a Career Member of the Senior 
        Foreign Service Class of Minister-Counselor, to be 
        Ambassador to the Republic of Guinea
Linda I. Etim, of Wisconsin, to be an Assistant Administrator 
        of the United States Agency for International 
        Development
                              ----------                              

    The committee met, pursuant to notice, at 2:04 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake, Gardner, Barrasso, Markey, Murphy, 
and Kaine.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    I welcome you all to this hearing.
    I was pleased to meet with all of you in my office earlier. 
I appreciate you making that effort to get to know you better 
and talk about your history and what you hope to accomplish. As 
you know, I have long had an interest in African affairs and 
had some opportunity to spend time there, including in Zimbabwe 
where one of the nominees is headed.
    Today we will hear from nominees for Ghana, Zimbabwe, 
Equatorial Guinea, and Guinea, and from the nominee to serve as 
Assistant Administrator at AID in its Africa Bureau. We will 
also examine a wide variety of issues.
    Ghana has embarked on its second MCC compact to address 
energy issues facing the country while it tries to diversify 
its economy away from oil.
    Zimbabwe's aged dictator, Robert Mugabe, is beginning to 
show signs that his age may give way to succession at some 
point, and we will be watching that leadership struggle in that 
country.
    Equatorial Guinea continues to struggle with human rights 
and developing its resources in a way to benefit all of its 
citizens.
    Guinea, of course, is picking up the pieces from the Ebola 
outbreak that wrought such devastation there and is looking 
forward to building a post-Ebola health care system.
    Lastly, we will look at how the Africa Bureau and USAID can 
bridge the gap from this administration to the next one while 
ensuring little or no disruption in the work that it is doing 
in sub-Saharan Africa.
    I thank all of you for your time, for sharing your 
experiences and your expertise with us. I look forward to your 
testimony. We have a PAC scheduled around this today, and so I 
hope you do not take our desire for brevity in this hearing as 
anything other than we have a busy schedule and we appreciate 
you being here and also appreciate--I know many of you have 
family members sitting behind you, and hopefully you will 
recognize them in your testimony.
    But I would like to recognize Senator Markey for his 
comments.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And 
thank you for your leadership on the subcommittee and for 
convening this hearing to consider the nomination of these 
distinguished public servants to serve as United States 
Ambassadors to countries in Africa and one to lead USAID's 
Africa Bureau.
    And to all the nominees who are here today, thank you for 
dedicating your lives in service to our country. Every one of 
you has served with a commitment and a dedication that we 
appreciate and admire.
    These are important nominations. Africa presents much 
opportunity but also many challenges.
    Mr. Chairman, when you and I joined the President in Africa 
this summer, we saw firsthand the possibilities to spark 
Africa's existing entrepreneurial spirit to create 
unprecedented economic opportunity and growth. We can and we 
should spur this growth by supporting expanded access to 
sustainable sources of power, innovative telecommunications, 
and Internet connectivity. All of these are fundamental 
requirements for commercial and social success in this modern 
21st century era.
    At the same time, Africa faces tremendous challenges. We 
must strongly support efforts to prevent trafficking in 
persons, protect human rights, including the right of LGBT 
people, and strengthen democracy and good governance.
    So I look forward to the hearing today, and again, we thank 
all of you for being here and your willingness to serve our 
country.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Markey.
    Our first nominee is Robert Porter Jackson, career member 
of the Senior Foreign Service, most recently at the State 
Department and prior to that Ambassador to the Republic of 
Cameroon, with previous postings in Morocco, Cote d'Ivoire, 
Zimbabwe, Botswana, Nigeria, Burundi. It is just about all of 
Africa there.
    Our second nominee, Harry K. Thomas, a career member of the 
Senior Foreign Service, currently serving as Diplomat in 
Residence at Arizona State University. A smart man. [Laughter.]
    I understand your wife enjoys it there as well. That is a 
good place to be. Everybody ends up in Arizona at some point, I 
should mention.
    Prior to that he served as Ambassador to the Philippines, 
previously posted in Washington, DC, and also around the world.
    Our third nominee is Julie Furuta-Toy, who is a career 
member of the Foreign Service as well. Her current posting is 
at our Embassy in Oslo, previous posts in Ghana, Washington, 
DC, and around the world. We talked in my office about 
springing from the equator up to Scandinavia and back. So that 
is quite a trip. I do not know what kind of clothes you pack 
wherever you go, but it has to be a variety.
    Our fourth nominee is Dennis B. Hankins, career member of 
the Senior Foreign Service also. He currently serves at our 
consulate in Brazil, prior postings in Sudan, Mauritania, 
Mozambique, DRC, and elsewhere.
    And also, the last as well, but Linda and I traveled in 
Africa recently, Linda Etim from Wisconsin, Assistant 
Administrator to USAID, the Africa Bureau there. I enjoyed 
being with you and Senator Markey as well and Kenya and 
Ethiopia. So I look forward to hearing your testimony.
    We will start with Ambassador Jackson.

      STATEMENT OF HON. ROBERT PORTER JACKSON, NOMINATED 
           TO BE AMBASSADOR TO THE REPUBLIC OF GHANA

    Ambassador Jackson. Thank you, Mr. Chairman, Mr. Ranking 
Member. I am honored to appear before you today, and I am 
grateful for the confidence that President Obama and Secretary 
Kerry have placed in me as their nominee to be the Ambassador 
to the Republic of Ghana.
    I am joined by my wife, Babs Jackson, and other friends and 
colleagues this afternoon.
    Since I joined the Foreign Service 33 years ago, as you 
noted, I have served on three continents, as well as here at 
home. In these assignments, I have endeavored to promote human 
rights, strengthen civil society, foster development, and 
expand U.S. exports. I have repeatedly returned to Africa 
because I have found that in the course of 2 or 3 years, one 
can see what one has accomplished. I found that especially true 
as Ambassador to Cameroon. If confirmed as the next U.S. 
Ambassador to Ghana, I will draw upon these experiences to 
advance U.S. interests in Africa.
    Ghana is a strong partner of the United States, sharing 
democratic values and goals of human rights, economic growth, 
and regional stability. If confirmed, my priorities will be to 
promote democracy, good governance, peace, trade, education, 
and health, to unlock Ghana's potential for sustained, 
inclusive, broad-based economic growth, and to help it graduate 
from traditional development assistance.
    Ghana is widely considered one of the leading democracies 
on the African Continent, with active political parties and 
civil society organizations. Ghana's democracy benefits from a 
lively media, a history of peaceful political transitions, an 
apolitical military, and a good human rights record. 
Celebrating 58 years of independence in 2015, Ghana has held 
six national elections since 1992, and power has alternated 
between its two largest political parties. If confirmed, I look 
forward to witnessing Ghana achieve its seventh consecutive 
peaceful and transparent national democratic elections in 
December of 2016.
    Ghana has been hit hard by low prices for its three major 
exports: cocoa, gold, and oil. Nonetheless, Ghana has the 
potential to become one of sub-Saharan Africa's leading 
economies and provides enormous opportunities for bilateral 
trade and investment. While Ghana takes advantage of the 
African Growth and Opportunity Act, continued assistance to 
increase domestic capacity and market competitiveness is needed 
to help Ghanaian businesses take full advantage of trade 
benefits provided by this legislation. The recently launched 
Trade Africa Expansion Initiative, along with USAID's West 
African Trade Hub, will play key roles in building the capacity 
of Ghanaian institutions and supporting Ghana's efforts to 
expand exports. Along with the USAID-led Feed the Future 
programs, the Trade Hub will also increase regional trade in 
agricultural products to improve food security. If confirmed, I 
will explore new and innovative approaches to expand commercial 
ties.
    One of the brakes on Ghana's growth has been inadequate 
infrastructure, especially in the energy sector. Ghana 
completed a 5-year Millennium Challenge account compact in 2012 
focused on agricultural and rural development, and Ghana signed 
a second compact during the U.S.-Africa Leaders Summit last 
August, this one focusing on the power sector.
    The summit itself highlighted U.S. ties with Africa. 
People-to-people links between the United States and Ghana have 
grown ever stronger over the last 50-plus years, and we have 
enjoyed a continuous and vibrant Peace Corps presence, as well 
as other exchange programs. Ghana is the original Peace Corps 
country, and Ghanaians are proud to say that while Peace Corps 
was born in the United States, it learned to walk in Ghana. 
More than 4,000 Peace Corps Volunteers have served in Ghana 
since 1961, and there are currently 136 Volunteers in 
agriculture, education, and health projects. In fact, Ghana has 
made steady but uneven progress in improving health over the 
last decade.
    Ghana and the United States share an interest in countering 
terrorism, securing maritime borders, and promoting regional 
stability. We are also working together to combat drug and 
human trafficking. Ghana is an important supporter of 
peacekeeping and law enforcement through the Kofi Annan 
Peacekeeping Center and a regional training center, 
respectively. A longtime participant in peacekeeping 
operations, Ghana is also a partner in the Security Governance 
Initiative and the African Peacekeeping Rapid Response 
Initiative. And its stability has contributed to peace and 
security in West Africa.
    Mr. Chairman, Mr. Ranking Member, I thank you for the 
opportunity to address you this afternoon, and I welcome your 
questions.
    [The prepared statement of Ambassador Jackson follows:]

                Prepared Statement of Robert P. Jackson

    Mr. Chairman, Mr. Ranking Member, and other members of the 
committee, I am honored to appear before you today. I am grateful for 
the confidence that President Obama and Secretary Kerry have placed in 
me as their nominee for Ambassador to the Republic of Ghana. I am 
joined today by Babette Pollard Jackson, my wife and partner for the 
last 26 years.
    Since I entered the Foreign Service 33 years ago, I have served in 
Canada, Burundi, Zimbabwe, Portugal, Cote d'Ivoire, Senegal, Morocco, 
and Cameroon, as well as here at home. In these assignments, I have 
endeavored to promote human rights, strengthen civil society, foster 
development, and expand U.S. exports. I have repeatedly returned to 
Africa because I have found that, in the course of 2 or 3 years, one 
can see one's accomplishments; I found that especially true as 
Ambassador to the Republic of Cameroon. If confirmed as the next U.S. 
Ambassador to the Republic of Ghana, I will draw upon these experiences 
to advance U.S. interests in Africa.
    Ghana is a strong partner of the United States, sharing democratic 
values and goals of human rights, economic growth, and regional 
stability. If confirmed, my priorities will be to promote democracy, 
good governance, peace, trade, education, and health, to unlock Ghana's 
potential for sustained, inclusive, broad-based economic growth and to 
help it graduate from traditional development assistance.
    Ghana is widely considered one of the leading democracies on the 
African Continent, with active political parties and civil society 
organizations. Ghana's democracy benefits from a lively media, a 
history of peaceful political transitions between the two main 
political parties, an apolitical military, and a good human rights 
record. Celebrating 58 years of independence in 2015, Ghana has held 
six national elections since 1992, and power has alternated between its 
two-largest political parties. If confirmed, I look forward to 
witnessing Ghana achieve its seventh consecutive peaceful and 
transparent national democratic elections in December 2016.
    Ghana has been hit hard by low prices for its three major exports: 
cocoa, gold, and oil. Nonetheless, Ghana has the potential to become 
one of sub- Saharan Africa's leading economies and provides enormous 
opportunities for bilateral trade and investment. While Ghana takes 
advantage of the African Growth and Opportunity Act (AGOA), continued 
assistance to increase domestic capacity and market competitiveness is 
needed to help Ghanaian businesses take full advantage of the trade 
benefits provided by this legislation. The recently launched Trade 
Africa Expansion Initiative, along with USAID's West African Trade Hub, 
will play key roles in building the capacity of Ghanaian institutions 
and supporting Ghana's efforts to expand exports. Along with the USAID-
led bilateral Feed the Future programs, the Trade Hub will also 
increase regional trade in agricultural products to improve food 
security. If confirmed, I will explore new and innovative approaches to 
expand commercial ties between the United States and Ghana.
    One of the brakes on Ghana's growth has been inadequate 
infrastructure, especially in the energy sector. Ghana completed a 5-
year $547 million Millennium Challenge Corporation (MCC) compact in 
2012 focused on agriculture and rural development. Ghana signed a 
second MCC compact to transform the power sector on August 5, 2014, 
during the U.S.-Africa Leaders summit.
    The summit highlighted U.S. ties with Africa. People-to-people 
links between the United States and Ghana have grown ever stronger 
through more than 50 years of a continuous and vibrant Peace Corps 
presence, as well as Fulbright, Humphrey, Community College Initiative 
(CCI), and Kennedy-Lugar Youth Exchange and Study (YES) exchange 
programs. Ghana is the original Peace Corps country and is proud of the 
fact that while Peace Corps was born in America, it learned to walk in 
Ghana. More than 4,410 Peace Corps volunteers have served in Ghana 
since the program was established in 1961. There are currently 136 
volunteers in Ghana working with their communities on projects in 
education, agriculture, and health.
    Ghana has made significant but uneven progress in improving health 
over the past decade. One of the key bottlenecks across almost all 
health indicators is the uneven distribution of wealth between Ghana's 
impoverished North and the more affluent South. Many of our programs, 
including basic education, health, and agricultural assistance, 
therefore, focus on the North.
    Ghana and the United States share an interest in countering 
terrorism, securing the maritime borders, and promoting regional 
stability. We are also working together to combat escalating drug and 
human trafficking. Ghana is an important supporter of peacekeeping 
through the Kofi Annan Peacekeeping Training Center and law 
enforcement-oriented efforts through the Regional Training Center. A 
longtime participant in the Africa Contingency Operations Training and 
Assistance (ACOTA) program, Ghana is also a partner country in the 
Security Governance Initiative and the African Peacekeeping Rapid 
Response Partnership (A-PRRP). Stability in Ghana has contributed to 
peace and security in West Africa, and if confirmed, I will support 
Ghana's efforts to promote regional and global stability. Of course, as 
is the case for all Ambassadors, protecting the safety and welfare of 
U.S. citizens will be a top priority.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to address you today. I welcome your questions.

    Senator Flake. Thank you, Mr. Jackson.
    Mr. Thomas.

    STATEMENT OF HON. HARRY K. THOMAS, JR., NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF ZIMBABWE

    Ambassador Thomas. Mr. Chairman and members of the 
committee, I am honored to appear before you today and grateful 
to President Obama, Secretary Kerry, and Assistant Secretary 
Linda Thomas-Greenfield for the confidence they have placed in 
me as their nominee for Ambassador to the Republic of Zimbabwe.
    Permit me to thank my family for their support, especially 
my wife and partner, Mithi Aquino-Thomas; my sister, Nelda 
Canada; my cousins, Jen and Sharon Boyd; Comitrik and Leslie 
Smith; and my niece, Alya Thomas. We are also joined by friends 
from around the globe, and I very much appreciate their 
attendance to witness how our democracy functions.
    I would like to add my sincere appreciation to my mom who 
is here today, Hildonia Thomas, robust at 91, and my late 
father, Harry Thomas, Sr., whose guidance and love gave me the 
opportunity to be before you today.
    A special thanks to my in-laws, Colonel Aquino and Dr. 
Aquino, for their faith and trust in me.
    Finally, our three children, Casey, Emmanuel Miguel, and 
Zoe are away at university but with us today in spirit.
    Mr. Chairman, I will summarize my remarks as the entire 
testimony has been entered into the record.
    Mr. Chairman, if confirmed, my top priorities will be to 
ensure the security and safety of American citizens and to 
advance the interests and values of the United States and the 
American people.
    I am excited at the possibility of returning to Zimbabwe 
where I previously served our Nation during a time of relative 
harmony. It is the land where our daughter, Casey, learned to 
walk, talk, and respect the wonderful people of Zimbabwe. It is 
where I visited the beautiful and important game parks that 
must be protected, saw the great historic Zimbabwe ruins, 
experienced the wondrous Victoria Falls, and witnessed the 
excitement the entire world shared when Nelson Mandela was 
released from prison and paid his initial visit to Harare as an 
example of forgiveness, tolerance, and respect for human 
rights.
    With full recognition of the complex challenges Zimbabwe 
faces, I remain optimistic about the country's future and 
believe that the United States has an important role to play in 
helping the people of Zimbabwe build a just, free, and 
prosperous nation. The trajectory of Zimbabwe's recent past 
should not obscure the nation's tremendous potential. Though 
battered by more than a decade of political strife, economic 
decline, and challenges to its health system, Zimbabwe retains 
a foundational human and physical infrastructure upon which it 
can build a strong future. It is in the interest of the United 
States to be a partner in that process, and if confirmed, I 
will continue the work of building productive and respectful 
relationships with all Zimbabweans of good will.
    The United States has shown its deep and abiding concern 
for Zimbabwe through the nearly $1 billion in humanitarian 
relief and health-related assistance we have provided to its 
people just in the last decade. There is no more explicit 
expression of our support for the people of Zimbabwe than our 
standing by them through their times of greatest need. We need, 
however, to prepare to move beyond a relationship defined by 
aid.
    U.S. policy in Zimbabwe is not about regime change. Only 
the people of Zimbabwe have the ability to change their 
government. Our policies support principles not parties or 
people. When, however, self-determination is denied, as it is 
in Zimbabwe through political violence, fraudulent and 
mismanaged elections, and restrictions on the rights and 
opportunity to take part in the conduct of public affairs, the 
United States cannot ignore such human rights violations. We 
have taken principled steps to demonstrate our concern about 
the actions of those responsible for and those who profit from 
miscarriages of the promise Zimbabwe offered at independence. 
We will consistently stand for the rights of Zimbabweans to 
participate fully in their nation's political process.
    If confirmed, I will work to enable Zimbabwe to become a 
just, prosperous, and democratic state that meets the needs of 
its people, contributes to security and development in the 
region, and plays an important role in world affairs. We will 
not always agree with the Government of Zimbabwe, but we will 
always attempt to maintain a respectful and open dialogue.
    The United States seeks the full implementation of the 2013 
Constitution: credible, lasting democratic reforms; and respect 
for human rights and the rule of law. If confirmed, I will work 
toward those objectives which could be a trigger for the United 
States to open a much more dynamic relationship.
    Thank you for the opportunity to appear before you today, 
and I would be happy to answer any questions.
    [The prepared statement of Ambassador Thomas follows:]

               Prepared Statement of Harry K. Thomas, Jr.

    Mr. Chairman and members of the committee, I am honored to appear 
before you today, and grateful to President Obama, Secretary Kerry, and 
Assistant Secretary Linda Thomas-Greenfield for the confidence they 
have placed in me as their nominee for Ambassador to the Republic of 
Zimbabwe. Please permit me to thank my family for their support 
especially my wife and partner Mithi Aquino-Thomas, a human resources 
instructor, my sister, Nelda Canada, a retired paralegal, my cousins, 
Ray and Jen Boyd, retired U.S. Government officials, and Sharon Boyd, 
who works for the Fairfax County Police. I would like to add my sincere 
appreciation to my mom, Hildonia Thomas, a former teacher and social 
worker, and my late father, Harry Thomas, Sr., whose guidance and love 
gave me the opportunity to be before you today. A special thanks to my 
in-laws, Col. Aquino and Doctor Aquino, for their faith and trust in 
me. Finally, our three children Casey, Emmanuel Miguel, and Zoe are 
away at university but with us today in spirit.
    Mr. Chairman, if confirmed, my top priorities will be to ensure the 
security and safety of American citizens and to advance the interests 
and values of the United States and the American people.
    I am excited at the possibility of returning to Zimbabwe where I 
previously served our Nation during a time of relative harmony. It is 
the land where our daughter, Casey, learned to walk, talk, and respect 
the wonderful people of Zimbabwe. It is where I visited the beautiful 
and important game parks that must be protected, saw the historic Great 
Zimbabwe ruins, experienced the wondrous Victoria Falls and witnessed 
the excitement the entire world shared when Nelson Mandela was released 
from prison and paid his initial visit to Harare as an example of 
forgiveness, tolerance, and respect for human rights. With full 
recognition of the complex challenges Zimbabwe faces, I remain 
optimistic about the country's future and believe that the United 
States has an important role to play in helping the people of Zimbabwe 
build a just, free, and prosperous nation. The trajectory of Zimbabwe's 
recent past should not obscure the nation's tremendous potential. 
Though battered by more than a decade of political strife, economic 
decline, and challenges to its health systems, Zimbabwe retains a 
foundational human and physical infrastructure upon which it can build 
a strong future. It is in the interest of the United States to be a 
partner in that process and, if confirmed, I will continue the work of 
building productive and respectful relationships with all Zimbabweans 
of good will.
    The United States has shown its deep and abiding concern for 
Zimbabwe through the nearly 1 billion dollars in humanitarian relief 
and health-related assistance we have provided to its people just in 
the last decade. There is no more explicit expression of our support 
for the people of Zimbabwe than our standing by them through their 
times of greatest need. We need, however, to prepare to move beyond a 
relationship defined by aid. Zimbabweans are fully capable of feeding 
themselves, meeting the nation's health and education needs, building a 
dynamic political system, and restoring what was once one of the 
strongest economies in Africa. Zimbabwe can and should be a nation of 
economic opportunities, of respect for the rule of law and the human 
rights of all people. Those are values that reflect the core of what 
Americans share with Zimbabweans and that we should pursue together.
    U.S. policy in Zimbabwe is not about regime change. Only the people 
of Zimbabwe have the ability to change their government. Our policies 
support principles, not parties or people.When, however, self-
determination is denied, as it is in Zimbabwe through political 
violence, fraudulent and mismanaged elections, and restrictions on the 
right and opportunity to take part in the conduct of public affairs, 
the United States cannot ignore such human rights violations. We have 
taken principled steps to demonstrate our concern about the actions of 
those responsible for, and those who profit from, miscarriages of the 
promise Zimbabwe offered at independence. We will consistently stand 
for the rights of Zimbabweans to participate fully in their nation's 
political processes.
    If confirmed, I will work to enable Zimbabwe to become a just, 
prosperous, and democratic state that meets the needs of its people, 
contributes to security and development in the region, and plays an 
important role in world affairs. That was U.S. policy in 1980 when we 
were the first nation to recognize Zimbabwe's independence, and it 
continues to be our policy. We will not always agree with the 
Government of Zimbabwe, but we will always attempt to maintain a 
respectful and open dialogue.
    The United States seeks the full implementation of the 2013 
Constitution; credible, lasting democratic reforms; and respect for 
human rights and rule of law by the Government of Zimbabwe. If 
confirmed, I will work with toward those objectives, which could be a 
trigger for the United States to open a much more dynamic relationship.
    If confirmed, I will give special attention to the welfare and 
security of American citizens in Zimbabwe and to meeting with people 
from across the rich spectrum of Zimbabwe's society, making an 
assessment of the situation there and offering recommendations on the 
best way forward. As we continue to urge democratic development, we 
must also continue to invest in the people of Zimbabwe--the health, 
people-to-people exchanges, humanitarian aid, and business development 
work--to preserve the human capital needed to rebuild Zimbabwe in the 
years ahead. I have faith that with this support, once given the 
opportunity to communicate, organize, and express their will, the 
people of Zimbabwe will find the best path forward and pursue it 
successfully.
    Thank you for the opportunity to appear before you and I would be 
happy to answer questions.

    Senator Flake. Well, thank you, Mr. Thomas. As they say in 
Zimbabwe, makorokoto. Congratulations for this nomination.
    And before Ms. Furuta-Toy says something, we have a home 
State Senator who wanted to say something.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to congratulate all the nominees and 
thank you for your commitment to service.
    I absolutely do want to take a moment to welcome Julie 
Furuta-Toy to the committee. I would love to stay. I am 
chairing a Public Lands Subcommittee hearing this afternoon, 
but I did want to come and congratulate each of you and to talk 
specifically about a proud resident of the great State of 
Wyoming. A number of years ago, Julie and her husband Steven 
made the wise decision to make Cody, WY, their home. As many of 
you know, Cody is a wonderful town, full of natural beauty. It 
is the gateway to Wyoming's crown jewel, Yellowstone National 
Park, and the home of former Wyoming U.S. Senator Alan Simpson. 
So if you need any advice, call Al. [Laughter.]
    He will put it in terms and he will be able to make it very 
clear to anyone listening exactly what he has in mind.
    But I will just tell you as a career member of the Senior 
Foreign Service, Julie Furuta-Toy has worked in many critical 
countries across the globe, including Mexico, the Philippines, 
Haiti, Russia, Ghana, India, Norway. Her 29 years of service 
has provided her with the knowledge, the skills, the 
experiences to address the many challenges and adventures 
ahead. I am very grateful for her willingness to serve our 
country and to provide strong leadership in implementing the 
foreign policy goals of the United States. It is clear that she 
will make her family, the people of Wyoming, and our Nation 
very proud.
    Thank you, Mr. Chairman.
    Senator Flake. Well, thank you. You are right to be proud.
    Mr. Hankins? Oh, I am sorry. [Laughter.]
    I thought he was speaking for you.
    Senator Barrasso. She will take questions later. 
[Laughter.]
    Senator Flake. I apologize. Ms. Furuta-Toy.

        STATEMENT OF JULIE FURUTA-TOY, NOMINATED TO BE 
        AMBASSADOR TO THE REPUBLIC OF EQUATORIAL GUINEA

    Ms. Furuta-Toy. Thank you very much, Chairman Flake, 
Ranking Member Markey, Senator Barrasso, Senator Kaine. I am 
very pleased today to have the opportunity to testify before 
you. It is a great honor for me to appear this afternoon as the 
nominee to be the next United States Ambassador to the Republic 
of Equatorial Guinea. And I am grateful for the confidence that 
President Obama and Secretary of State Kerry have placed in me. 
If confirmed by the Senate, I will do my best to uphold this 
trust and further the U.S. national interests.
    Mr. Chairman, I regret that my husband, Steve, is in 
Wyoming today and my daughter, Sara, is unable to be here, but 
I am pleased to introduce to you my son, Eliot. He was born 
during my first tour in the Foreign Service 27 years ago in 
Manila, the Philippines.
    And since then, as Senator Barrasso has noted, I have 
served in many places around the world, a disparate group of 
countries that has demonstrated to me similar disparate 
attitudes towards the rule of law, good governance, and 
transparency.
    While serving as the Deputy Chief of Mission in Ghana, I am 
proud to have implemented U.S. foreign policy focused on 
reducing and eliminating the worst forms of child labor and 
trafficking in persons. And through interagency dialogue and 
strong support from the Department of State and U.S. Congress, 
we were also able to promote important educational exchanges, 
target assistance towards the country's impediments to growth, 
and support U.S. commercial interests.
    Mr. Chairman, Ranking Member Markey, if confirmed, I look 
forward to working with you and the honorable members of this 
committee similarly to advance U.S. interests in Equatorial 
Guinea. U.S. policy priorities in Equatorial Guinea are to 
encourage the government there to open democratic space to the 
opposition, increase respect for human rights and civil 
liberties, strengthen our commercial ties and diversify its 
economy, and to increase economic, health, and educational 
opportunities for all its citizens.
    Equatorial Guinea, with a population of about 1 million 
people, is located on the strategic Gulf of Guinea. Although 
the country is nominally a multiparty, constitutional republic, 
President Obiang's Democratic Party of Equatorial Guinea has 
been in power since a military coup in 1979. The party controls 
all but one seat in the Chamber of Deputies and one seat in the 
Senate. Opposition political parties are severely restricted, 
and opposition leaders have faced harassment, intimidation, and 
arrest.
    Equatorial Guinea is the third-largest producer of oil in 
sub-Saharan Africa and has one of the highest per-capita income 
rates in Africa. Despite this, much of its population lives 
below the poverty level and official corruption is widespread. 
Should I be confirmed, I will stress and encourage the 
country's leadership to respect human rights and rule of law. I 
will also urge that government leaders pursue multi-party 
democracy and facilitate the growth of a strong civil society. 
And I will stress that promoting transparency and ending 
corrupt practices are key to Equatorial Guinea's long-term 
growth and stability.
    The United States has a robust economic relationship with 
Equatorial Guinea and remains its largest trading partner. The 
U.S. Embassy plays a critical trade facilitation and promotion 
role for U.S. investors in Equatorial Guinea. U.S. oil 
companies are Equatorial Guinea's largest investors, and they 
have the lead role in oil and gas exploration and extraction. 
Moreover, last year, Equatorial Guinea was the ninth-largest 
African market for U.S. exports. Should I be confirmed, I will 
continue to work to protect the commercial interests of U.S. 
oil companies invested in Equatorial Guinea.
    Mr. Chairman, while our bilateral dialogue and engagement 
pays heed to Equatorial Guinea's sovereignty and traditions, we 
must also be frank in discussing our concerns. If confirmed, I 
will continue to promote U.S. interests and encourage 
Equatorial Guinea's further political, economic, and social 
development while vigilantly protecting the safety of our 
Embassy personnel and their families.
    And finally, if confirmed, no goal will be more important 
to me than protecting the lives, interests, and welfare of 
American citizens living and traveling in Equatorial Guinea.
    I promise to work closely with you and the members of this 
committee in this endeavor.
    I thank you for the opportunity to appear before you today, 
and I would be pleased to answer any questions you may have.
    [The prepared statement of Ms. Furuta-Toy follows:]

                 Prepared Statement of Julie Furuta-Toy

    Thank you very much Chairman Flake, Ranking Member Markey, and 
members of the committee for the opportunity to testify before you 
today. It is a great honor for me to appear before you this afternoon 
as the nominee to be the next United States Ambassador to the Republic 
of Equatorial Guinea. I am grateful for the confidence that President 
Obama and Secretary of State Kerry have placed in me. If confirmed by 
the Senate, I will do my best to uphold this trust and further U.S. 
national interests.
    Mr. Chairman, I am pleased to introduce my son Eliot. He was born 
during my first tour in the Foreign Service 27 years ago in Manila, the 
Philippines.
    Since then, I have had the honor to serve in Haiti, India, Russia, 
Ghana, and Norway. Such a disparate group of countries has demonstrated 
to me similarly disparate attitudes toward rule of law, good 
governance, and transparency. While serving as Deputy Chief of Mission 
in Ghana I am proud to have implemented U.S. policy focused on reducing 
and eliminating the worst forms of child labor and trafficking in 
persons. Through interagency dialogue and strong support from the 
Department of State and U.S. Congress, we were also able to promote 
important educational exchanges, target assistance toward the country's 
impediments to growth, and support U.S. commercial interests.
    Mr. Chairman, Ranking Member Markey, if confirmed, I look forward 
to working with you and the honorable members of this committee 
similarly to advance U.S. interests in Equatorial Guinea. U.S. policy 
priorities in Equatorial Guinea are to encourage the government there 
to open democratic space to the opposition, increase respect for human 
rights and civil liberties, strengthen our commercial ties and 
diversify its economy, and to increase economic, health, and 
educational opportunities for all its citizens.
    Equatorial Guinea, with a population of fewer than 1 million 
people, is located on the strategic Gulf of Guinea. Although the 
country is nominally a multiparty, constitutional republic, President 
Obiang Nguema's Democratic Party of Equatorial Guinea has been in power 
since a military coup in 1979. The Party controls all but one seat in 
the Chamber of Deputies and one seat in the Senate. Opposition 
political parties are severely restricted, and opposition leaders have 
faced harassment, intimidation, and arrest. Equatorial Guinea is the 
third-largest producer of oil in sub-Saharan Africa, and has one of the 
highest per-capita income rates in Africa. Despite this, much of its 
population lives below the poverty level; and official corruption is 
widespread. Should I be confirmed, I will stress and encourage the 
country's leadership to respect human rights and rule of law. I will 
also urge that government leaders pursue multiparty democracy and 
facilitate the growth of a strong civil society, and I will stress that 
promoting transparency and ending corrupt practices are key to 
Equatorial Guinea's long-term growth and stability.
    The United States has a robust economic relationship with 
Equatorial Guinea, and remains its largest trading partner. The U.S. 
Embassy plays a critical trade facilitation and promotion role for U.S. 
investors in Equatorial Guinea. U.S. oil companies are Equatorial 
Guinea's largest investors, and they have the lead role in oil and gas 
exploration and extraction. Moreover, last year Equatorial Guinea was 
the ninth-largest African market for U.S. exports. Should I be 
confirmed, I will continue to work to protect the commercial interests 
of U.S. oil companies invested in Equatorial Guinea.
    Mr. Chairman, while our bilateral dialogue and engagement pays heed 
to Equatorial Guinea's sovereignty and traditions, we also must be 
frank in discussing our concerns. If confirmed, I will continue to 
promote U.S. interests and encourage Equatorial Guinea's further 
political, economic, and social development, while vigilantly 
protecting the safety of our embassy personnel and their families.
    And, finally, if confirmed, no goal will be more important to me 
than protecting the lives, interests and welfare of American citizens 
living and traveling in Equatorial Guinea.
    I promise to work closely with you and the members of this 
committee in this endeavor.
    I thank you for the opportunity to appear before you today. I would 
be pleased to answer any questions you may have.

    Senator Flake. Thank you.
    Mr. Hankins.

        STATEMENT OF DENNIS B. HANKINS, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF GUINEA

    Mr. Hankins. Mr. Chairman, and members of the committee, I 
am deeply honored to appear before you today and grateful to 
President Obama and Secretary Kerry for the confidence they 
have placed in me as their nominee for Ambassador to the 
Republic of Guinea.
    I want to recognize my wife, Mira, who is here today. She 
has been by my side through 31 years in the Foreign Service, 
and I credit her for providing support for any success I may 
have had. My son, Danu, cannot be here today due to his service 
commitments with the United States Navy.
    It has been my honor to serve in 16 assignments during my 
Foreign Service career, with six of those assignments spanning 
14 years focused on Africa. Many of my assignments have been in 
countries in the midst of or emerging from crisis. Despite the 
challenges of these postings, I have relished the opportunity 
to engage in diplomacy that can dramatically affect a country's 
future and advance American interests.
    My experience in a number of young African democracies 
tells me that the transition from dictatorship to an open 
society requires constant sustained attention and commitment by 
national leaders and all segments of society. Guineans have 
made it clear that they want to see the United States working 
hand in hand with all three branches of the Guinean Government 
to reinforce Guinea's democratic architecture. Our work to 
strengthen media reforms and civil society is just as 
important. As part of our work with the executive branch, we 
continue to work with Guinea's security apparatus, the military 
and police, to strengthen its professionalism and bring it 
firmly under elected civilian authority. Finally, we must 
sustain our efforts to reduce poverty and disease in Guinea, 
including by strengthening the health system. Responsible 
management of Guinea's mineral wealth is key to Guinea's long-
term poverty reduction efforts. The challenges are many and 
will only be overcome through true Guinean commitment, but we 
need to support those who wish to help their country.
    The Republic of Guinea achieved a landmark election in 
2010, its first free and democratic Presidential election. If 
confirmed, I will work hard to ensure U.S. support for Guinea's 
nascent democracy continues in a meaningful and impactful way. 
Guinea will hold its second Presidential elections in 11 days. 
If confirmed, my priority will be to work with the newly 
elected administration and opposition parties in building an 
inclusive and constructive political dialogue. Looking toward 
the new year, my focus will shift to local elections. These 
upcoming elections provide Guinea the concrete opportunity to 
further deepen its transition to democracy.
    In the midst of Presidential elections, Guinea continues to 
battle the Ebola outbreak. If confirmed, I will remain firmly 
committed and fully committed to helping Guinea get to zero in 
its fight against Ebola. The persistent transmission of Ebola 
over the past 18 months highlights the fragility of primary 
health care facilities in the country and deep-rooted public 
health challenges. The United States continues to provide 
significant technical assistance to Guinea on restoring and 
improving the health care system, as well as ending the Ebola 
epidemic. I look forward to supporting the efforts of USAID, 
CDC, and NIH in Guinea.
    In the long term, if confirmed, I will encourage the 
Guinean Government to remain a constructive regional and 
international actor and will work with the government and all 
segments of society to foster better political and economic 
decisionmaking at home. In the Republic of Guinea, we have a 
willing partner on regional and international issues, yet the 
government's capacity is limited. If confirmed, I will work 
with the Guinean Government to further strengthen its approach 
to regional crises. I will also work to strengthen cooperation 
on counternarcotics issues, as well as other forms of 
transnational crimes such as trafficking in persons and money 
laundering. I will make the safety and welfare of my staff and 
all U.S. citizens my highest priority and seek out commercial 
opportunities for U.S. companies.
    Thank you, Mr. Chairman and members of the committee, for 
the opportunity to address you today. If confirmed, I look 
forward to working with you and representing the interests of 
the American people in Guinea.
    I am happy to answer any questions.
    [The prepared statement of Mr. Hankins follows:]

                Prepared Statement of Dennis B. Hankins

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today, and grateful to President Obama and Secretary 
Kerry for the confidence they have placed in me as their nominee for 
Ambassador to the Republic of Guinea. I want to recognize my wife, 
Mira, who is here today. She has been at my side through my 31 years in 
the Foreign Service, and I credit her for providing support for any 
success I may have had. My son, Danu, cannot be here today due to his 
service commitments in the United States Navy.
    It has been my honor to serve in 16 assignments during my Foreign 
Service career with 6 of those assignments--spanning 14--focused on 
Africa. Many of my assignments have been in countries in the midst of, 
or emerging from, crisis. Despite the challenges of these postings, I 
have relished the opportunities to engage in diplomacy that can 
dramatically affect a country's future and advance American interests.
    My experience in a number of young African democracies tells me 
that the transition from dictatorship to an open society requires 
constant sustained attention and commitment by national leaders and all 
segments of society. Guineans have made it clear that they want to see 
the United States working hand in hand with all three branches of the 
Guinean Government to reinforce Guinea's democratic architecture. Our 
work to strengthen media freedoms and civil society is just as 
important. As part of our work with the executive branch, we continue 
to work with Guinea's security apparatus--the military and police--to 
strengthen its professionalism and bring it firmly under elected 
civilian authority. Finally, we must sustain our efforts to reduce 
poverty and disease in Guinea, including by strengthening the health 
system. Responsible management of Guinea's mineral wealth is key to 
Guinea's long-term poverty reduction efforts. The challenges are many 
and will only be overcome through true Guinean commitment, but we need 
to support those who wish to help their country.
    The Republic of Guinea achieved a landmark election in 2010, its 
first free and fair democratic Presidential election. If confirmed, I 
will work hard to ensure U.S. support for Guinea's nascent democracy 
continues in a meaningful and impactful way. Guinea will hold its 
second Presidential elections in 11 days. If confirmed, my priority 
will be to work the newly elected administration and opposition parties 
in building an inclusive and constructive political dialogue. Looking 
toward the new year, my focus will shift to local elections. These 
upcoming elections provide Guinea with a concrete opportunity to 
further deepen its transition to democracy.
    In the midst of Presidential elections, Guinea continues to battle 
the Ebola outbreak. If confirmed, I will remain fully committed to 
helping Guinea ``get to zero'' in its fight against Ebola. The 
persistent transmission of Ebola over the past 18 months highlights the 
fragility of primary health care facilities in the country and deep-
rooted public health challenges. The United States continues to provide 
significant technical assistance to Guinea on restoring and improving 
the health care system as well as ending the Ebola epidemic. I look 
forward to supporting the efforts of USAID and CDC in Guinea.
    In the long term, if confirmed, I will encourage the Guinean 
Government to remain a constructive regional and international actor, 
and will work with the government and all segments of society to foster 
better political and economic decisionmaking at home. In the Republic 
of Guinea, we have a willing partner on regional and international 
issues, yet the government's capacity is limited. If confirmed, I will 
work with the Guinean Government to further strengthen its approach to 
regional crises. I will also work to strengthen cooperation on 
counternarcotics issues, as well as other forms of transnational 
crimes, such as trafficking in persons and money laundering. I will 
make the safety and welfare of my staff and all U.S. citizens my 
highest priority and seek out commercial opportunities for U.S. 
companies.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to address you today. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Guinea. I am happy to answer any questions.

    Senator Flake. Thank you.
    Ms. Etim.

   STATEMENT OF LINDA I. ETIM, NOMINATED TO BE AN ASSISTANT 
 ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Etim. Mr. Chairman, Ranking Member Markey, 
distinguished members of the committee, it is an honor to 
appear before you today as the nominee to be the next Assistant 
Administrator for USAID's Bureau for Africa.
    I want to express my appreciation for the confidence that 
President Obama has placed in me with this nomination and for 
the strong support of Secretary Kerry and Acting Administrator 
Lenhardt. I would also like to take the opportunity to thank 
Earl Gast, the Africa Bureau's former Assistant Administrator 
who ably led the bureau of 3 years.
    Most importantly, I would like to thank my family, my 
sister, Ann Etim, who is here today taking her day off of work, 
as well as parents and our other sister, Jennifer Etim, who 
recently passed away but remains a constant source of 
motivation and strength.
    My nomination to this post is deeply personal. As the 
daughter of an immigrant who fled Nigeria for the United States 
during the Biafran war, I am intimately familiar with the 
pressures that a country's fragility places on its citizens. 
After more than a decade of working on African issues for the 
United States Government, I have seen development improve 
people's lives and their ability to take their destiny into 
their own hands. This is why I believe in USAID's mission to 
end extreme poverty, to promote democratic societies, to 
bolster security, and to help encourage prosperity for all.
    My professional life has been devoted to supporting U.S. 
efforts to empower Africa's people to fulfill the promise that 
resides on every corner of the continent. I spent the first few 
years working for the U.S. Government as a security specialist 
in African affairs, but more recently at the White House as the 
National Security Director for Sudan, South Sudan, and East 
African Affairs. I helped to coordinate U.S. policy on security 
issues, governance, economic growth, and humanitarian crises. 
In that position, I saw firsthand the important role that 
development plays for efforts on the continent.
    I was then honored to be appointed as Deputy Assistant 
Administrator to Africa for USAID, and for the past 3\1/2\ 
years in that position, I have stood side by side with the 
agency's committed men and women. Many of our staff work in 
difficult environment and tackle really difficult challenges 
throughout the world.
    If confirmed, in addition to focusing on the management for 
the bureau, I will concentrate on three objectives. First, I 
believe we need to continue to invest in Africa's greatest 
resource, which is its people, to further development, 
democracy, humanitarian, and governance for this and for future 
generations.
    Second, I will continue USAID's focus on accelerating 
sustainable development through African-led partnerships.
    And third, I will ensure that our work is implemented 
effectively and that we evaluate the results and apply lessons 
learned going forward.
    Although a number of Africa's challenges can seem 
intractable, I see both the challenges and the remarkable 
progress that the African Continent has sustained as bright 
lights of opportunity. With the strong bipartisan support from 
Congress, our initiatives across the continent have actually 
led to some really great results. For example, and as you know, 
Feed the Future has helped more than 2.5 million African 
farmers using improved technologies and management practices 
and has led to increased food security. Through Power Africa, 
U.S. commitments of $7 billion have mobilized more than $20 
billion in private capital which is financing access to energy 
and will add six million new connections across the continent.
    Africa is the fastest-growing continent in the world, and 
its population in the coming decades will double. Many of its 
citizens will be under the age of 18. We have the opportunity 
now to harness the intelligence, creativity, and drive of these 
young Africans who ignited growth and lead reforms throughout 
the region. They need enhanced skills. They need access to 
capital. They need jobs. They need the innovations that will 
help drive tomorrow's development solutions. This is why I am 
so supportive of the initiatives that we have here today.
    There is no denying that Africa is important to the United 
States, both from the standpoint of our moral imperative to 
help solve the biggest development challenges on the planet and 
because of its impact on our own national security and economic 
growth. USAID is committed to collaborating with donors and 
private sector partners to amplify the impact of U.S. 
investments in development, and if confirmed, I am eager to 
advance this approach to doing business.
    If confirmed, I look forward to continuing to deepen our 
relationship with Congress. Your long-standing and bipartisan 
support to the African people has provided the foundation for 
our programs and is the springboard for our future success.
    I thank you for the opportunity to appear before you today, 
and I welcome any questions you might have. Thanks.
    [The prepared statement of Ms. Etim follows:]

                  Prepared Statement of Linda I. Etim

    Mr. Chairman, Ranking Member Markey, distinguished members of the 
committee, it is an honor to appear before you today as the nominee to 
be the next Assistant Administrator for Africa at the United States 
Agency for International Development (USAID).
    I want to express my appreciation for the trust and confidence 
President Obama has placed in me by nominating me for this important 
position and for the strong support of Secretary Kerry and Acting 
Administrator Lenhardt. I would also like to thank Earl Gast, the 
Africa Bureau's former Assistant Administrator who ably led the Bureau 
for 3 years. Most importantly, I would like to thank my family--my 
sister, Ann Etim, who is here today, as well as our parents and our 
other sister, Jennifer Etim, who, although no longer with us, remain my 
rocks.
    My nomination to this post is deeply personal. As the daughter of 
an immigrant who fled Nigeria for the United States during the Biafran 
war, I am intimately familiar with the pressures that a country's 
fragility places on its citizens. After more than a decade working on 
African issues, I have seen development improve people's lives and help 
countries grow. That is why I believe USAID's mission to end extreme 
poverty, promote democratic societies, and bolster security and 
prosperity for all is essential. If confirmed, I look forward to 
continuing my support for USAID's new model for sustainable 
development, one built on partnerships with governments, businesses, 
universities, and civil society, as well as with the new generation of 
African leaders, thinkers, entrepreneurs, and innovators, who are 
leading the transformation of their societies.
    My professional life has been devoted to empowering Africa's people 
to fulfill the promise that resides in every corner of the continent. 
Throughout my career, I have had the honor to work on some of Africa's 
most pressing challenges. I spent the first years of my career working 
for the U.S. Government as a specialist in African security affairs. 
More recently, as the Director for East African Affairs and Sudan, 
South Sudan at the National Security Council, I coordinated U.S. policy 
on civilian-military affairs, governance, economic growth and 
humanitarian crises in the Horn of Africa. In that position, I saw 
firsthand the important role of development in Africa and was honored 
to be appointed Deputy Assistant Administrator for Africa at USAID. 
During the past 3\1/2\ years at USAID, I have stood side by side with 
the Agency's committed men and women, many of whom work in difficult 
environments, to tackle critical development challenges. After nearly 
15 years working on African affairs I am intimately familiar with the 
complex fabric that makes up sub-Saharan Africa's 49 countries.
    If confirmed, in addition to focusing on the management of the 
Bureau, I will concentrate on three objectives for the Africa Bureau 
that I believe are critical to the sustainability, growth, and success 
of our development goals. First, I believe 
we need to continue to invest in Africa's greatest resource--its 
people--to further development, democracy, opportunity, rights and 
governance for this and future generations. Second, I will continue 
USAID's focus on accelerating sustainable development through African-
led partnerships. Third, I will ensure that our work is implemented 
effectively, that we evaluate the results, and that we apply those 
lessons learned going forward.
    Although many of Africa's challenges may seem intractable, I see 
both the challenges and the remarkable progress, led by our African 
counterparts, as bright lights across the continent. Both Zambia and 
Nigeria held successful elections this past year. Nigeria's elections 
were historic, marking the first-ever democratic transfer of power in 
Africa's most populous nation. With strong bipartisan support from 
Congress, our initiatives on the continent are bearing fruit. In fiscal 
year 2014, Feed the Future, the U.S. Government's global hunger and 
food security initiative, helped nearly 2.5 million African farmers use 
improved technologies and management practices while spurring $306 
million in new agricultural sales on the continent. Recent data suggest 
that Feed the Future and other efforts contributed to a 9-percent 
reduction in stunting in Ethiopia between 2011 and 2014 and a 16-
percent decrease in poverty in the rural areas of Uganda between 2009-
2010 and 2012-2013. Through Power Africa, the United States is working 
with a range of partners to accelerate private-sector energy 
transactions, by leveraging the assistance, financing, commercial and 
diplomatic tools of the U.S. Government, as well as the tools and 
expertise of our bilateral and multilateral partners and the private 
sector with the aim of expanding access to electricity by 60 million 
new connections. Two years after Power Africa's launch, the U.S. 
Government's commitment of $7 billion has mobilized more than $20 
billion in private capital from more than 100 private sector partners.
    As the fastest-growing continent, Africa's population in the coming 
decades will double, and many of its people will be under 18. We have a 
tremendous challenge but also an opportunity to harness the 
intelligence, creativity, and drive of these young Africans who will 
introduce disruptive technologies, ignite growth, and lead reforms 
throughout the region. They will need enhanced skills and access to 
capital, jobs, and innovations to help address tomorrow's development 
challenges. Partnerships are key to this engagement. For example, 
through the Global Development Alliance agreement with USAID, as part 
of Feed the Future, Partners in Food Solutions (PFS) transfers 
technology and knowledge to African processors. PFS is a nonprofit 
organization formed by General Mills that harnesses the global 
technical expertise of General Mills, Cargill, Royal DSM, and Buhler. 
Since its inception, PFS has linked 765 volunteers to 119 food 
processors in Ethiopia, Kenya, Malawi, Tanzania, and Zambia, impacting 
829,000 smallholder farmers. We must also promote inclusive development 
that recognizes women as key drivers of economic growth. In order to 
end extreme poverty, feed the planet, and build vibrant economies, 
women and girls must gain access to capital, land, markets, training, 
and leadership opportunities. That is why I am so supportive of the 
President's Young African Leaders Initiative, which is investing in the 
next generation of leaders, who are eager and able to shape Africa's 
future.
    We are building on the successes of the last generation and 
accounting for new realities, opportunities, and future challenges. 
With roughly half of the world's extreme poor residing in fragile and 
conflict affected states, we are remiss to discuss sustainable 
development gains without emphasizing the realities, needs, and 
capabilities of those societies in conflict and those trying to emerge 
from it. In fragile countries like South Sudan, we are assessing how 
best to help countries experiencing recurring cycles of conflict. South 
Sudan's peace agreement, signed in late August, while tenuous and 
fragile, presents an opportunity to mitigate the impact of the conflict 
on the people of South Sudan and support strategies for sustainable 
security.
    There is no denying Africa's importance to the United States, both 
for our moral imperative to help solve the biggest development 
challenges on the planet and because of its impact on the United States 
own national security and economic growth. USAID is committed to 
collaborating with donors, private sector partners, and faith-based 
organizations to leverage our relative strengths and amplify the effect 
of U.S. investments in development. These efforts are already having an 
effect on our work in Africa, and if confirmed, I am eager to advance 
this new approach to doing business.
    I know the road ahead is not an easy one. Nowhere does development 
show more promise yet pose such challenge than it does today in sub-
Saharan Africa.
    If confirmed, I look forward to working with my talented colleagues 
at USAID, our partners throughout the U.S. Government, the private 
sector, multilateral and nongovernmental organizations, and our 
counterparts in Africa to address critical development and humanitarian 
needs on the continent. I also look forward to continuing to deepen our 
relationship with Congress, whose long-time bipartisan commitment to 
the African people has provided the foundation for our programs and the 
springboard for our success.
    In conclusion, I am honored to be considered for this position and 
to contribute to the goal of ending extreme poverty and promoting 
resilient, democratic societies while advancing security and prosperity 
for both Americans and Africans.
    I am deeply committed to USAID's goals and the integrated role that 
it plays with the Department of State and the Department of Defense in 
advancing U.S. policy and national security objectives, and if 
confirmed, I will work diligently toward advancing these goals.
    Thank you for the opportunity to appear before you today. I welcome 
any questions you might have.

    Senator Flake. Thank you, Ms. Etim.
    I will start with a round of questions, and if you could 
keep your answers as short as possible, we will get as many 
questions in as we can with five of you there.
    Mr. Jackson, with regard to Ghana, you mentioned the 
challenges on the energy side. Where are most investments 
needed and how can that be facilitated through the programs 
that we have? Is it on generation or distribution, 
transmission, all of the above? Give us a sense of what is 
needed there.
    Ambassador Jackson. Senator, it is actually all of the 
above. The Millennium Challenge compact is focused on 
distribution and construction of an additional gas plant. The 
Overseas Private Investment Corporation has also invested in an 
additional gas plant. But there is much more work needed to 
ensure that many underserved areas of Ghana have access to 
electricity, and through the Power Africa program, we are 
attempting to supplement the gains that will be made through 
the compact. Thank you.
    Senator Flake. Well, thank you.
    Mr. Thomas, as we talked about in my office, I actually 
wrote my master's thesis on Robert Mugabe and his ability to 
hold onto power at the end of the 1980s. And here we are almost 
30 years later with some of the same issues.
    But you mentioned in my office that it will take a 
generation of work to turn Zimbabwe around. Where do we start? 
What is the place where the United States needs to start?
    Ambassador Thomas. Well, Senator, you make an excellent 
point. It will take time. And I think working with the business 
community in Zimbabwe and the United States to lower economic 
obstacles, to increase opportunity, to reduce corruption, to 
make more transparency will be an excellent start for our 
bilateral relationship and to increase their economic 
opportunity. Over 65 percent of the people of Zimbabwe are 
under 40 years of age. Eighty-five percent unemployment rate. 
So they need this opportunity through business and education, 
and those are the things that we would look at if I am 
confirmed. Thank you very much, Senator.
    Senator Flake. Thank you.
    Ms. Furuta-Toy, you talked about the issues with regard to 
government corruption and the lack of distribution of the oil 
wealth that comes there. Let me turn to security for a minute, 
maritime security in the Gulf of Guinea. How much of an issue 
is that, and what contributions is Equatorial Guinea making to 
that? And is that a partnership with other nations, and are we 
doing enough in the United States to make sure that we do not 
have a situation there that we had in the Horn of Africa 
earlier on?
    Ms. Furuta-Toy. Senator, thank you for that question.
    The issue of security in Equatorial Guinea is one that 
involves all of the nations in the Gulf of Guinea. We have 
encouraged the Government of Equatorial Guinea to collaborate 
with its neighbors on maritime security and have supported the 
participation of Equatorial Guinea on a self-funded, funded by 
the Equatorial Guinea-Guinean Government, in maritime joint 
practices in the region.
    Beyond that, the Government of Equatorial Guinea really 
prides itself on being able to provide security and safety for 
its citizens. And we are encouraging the government to try to 
take that in a bigger point of view of you are providing 
security and safety, but you also need to be able to provide a 
larger democratic space for the opposition for the political 
process so that the future of the country is better secured.
    Approximately half of the country is under the age of 19. 
So the future really is in the youth and in those future 
generations.
    Senator Flake. Thank you.
    Mr. Hankins, between the three countries that have the 
biggest issue with Ebola, Guinea has had the most difficult 
time I guess in stamping it out, and some worry that it will be 
the most likely place for it to flare up again. What can we do 
on the public health side that we are not doing already to 
ensure that that does not happen?
    Mr. Hankins. Thank you, Mr. Chairman.
    It is correct then that Ebola started in Guinea and has 
passed through. We have had more than 3,200 confirmed cases in 
Guinea of Ebola, and even this past week, we have had four new 
cases. Where there has been success--and I give great credit to 
my colleagues from USAID, from CDC--we have helped the 
government build the capacity to quickly isolate and limit 
expansion. We are now looking--and if confirmed, I believe I 
will arrive at a point of transition from Ebola crisis to long-
term health care, and we are looking in terms of the global 
health security agenda in terms of continuing to focus on Ebola 
but building the other parts of the health system particularly 
in terms of the vaccination systems. In 2013, the vaccination 
rate for the country was only 63 percent, putting it in the 
bottom 10 percent of developing countries. We saw the effect of 
that recently with a polio case. That carried on into Mali. So 
we will be looking closely at building these basic systems 
while not losing sight of Ebola and the risks that that poses.
    Senator Flake. Thank you.
    Ms. Etim, you talked in your testimony--and we talked about 
before the benefits of USAID's action in Africa, alleviating 
poverty, helping development, improving the quality of life. 
Those things are important, and that is the first and foremost 
reason that we take action there. But there are also knock-on 
effects and impacts from USAID with regard to the security 
sphere and our ability to work with countries and their 
willingness to work with us.
    Can you talk a little bit about that? Our constituents need 
to know that story more. Obviously, the reason we want to help 
with USAID is to help development and improve the quality of 
life, but there are other benefits as well. Talk about those 
for a minute.
    Ms. Etim. Thank you, Senator. We did have that 
conversation. And I think that you can see very clearly with 
the case that Dennis just brought up with Ebola, when you have 
health systems that are not strengthened and when you have 
country governance systems that are not trusted, the 
possibility and the potential of starting pandemics that cannot 
be contained and that actually might have flared to actually 
affect us here in the United States is very real and present.
    We are dealing with, I think, a lot of transnational 
trafficking issues.
    I think the migration crisis that we are seeing right now 
in other parts of the world--Africa is home to 38 percent of 
the world's refugees. It is hugely expensive for the 
international community not only to respond but I think as we 
look at people moving over borders as well, addressing and 
dealing with a lot of the root causes becomes increasingly 
important.
    I think I will stop there. It could go on for a really long 
time.
    Senator Flake. Address for just a second not just the 
migration issues and refugee issues but arrangements that we 
have with Kenya to battle terrorist groups, lot of those 
relationships helped by our other assistance through USAID.
    Ms. Etim. Absolutely. USAID works in partnership with the 
larger U.S. Government efforts on work on countering violent 
extremism. As you mentioned, Kenya is a prime example right 
there. There, USAID works on addressing some of the root causes 
and so is part of an overall interagency effort. For example, 
we work on combating wildlife trafficking, and through our 
community-based programs there and assisting communities and 
developing plans to work on economic growth, sustain 
livelihoods, we offer alternatives to moving into violent 
extremism. We also work in partnership there with a number of 
wildlife trafficking institutions and the national police 
services. So USAID is an integral part of that overall 
interagency effort.
    Senator Flake. Thank you much.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ambassador Jackson, earlier this year, the State Department 
named Ghana as the first country in which to implement the 
child protection compacts, which have a specific focus to 
prioritize the rescue of children in slave labor conditions and 
hold perpetrators of child labor accountable for those crimes. 
Talk a little bit about that and what the role is of the U.S. 
Government in ensuring that this is a successful program.
    Ambassador Jackson. Thank you very much, Senator.
    In fact, Ghana has a strong tradition of working to combat 
trafficking in persons and child labor. It remains a problem. 
The Ghanaian Government has traditionally been focused on 
preventing the outflow of trafficked people. We have 
encouraged, through this new partnership program, which is 
valued at $5 million, to have Ghana work more on the inside. We 
have provided assistance for protection, prevention, and 
prosecution. The prosecution part has worked reasonably well, 
but we need to do much more on the protection front and I am 
hopeful that this partnership will allow us to do so.
    Senator Markey. Thank you.
    Ambassador Thomas, the United States has sent a tremendous 
amount of aid to Zimbabwe to fight HIV/AIDS. Could you update 
us in terms of what the status is and maybe recommendations 
that you might make in terms of other health care assistance 
that we could help to provide to Zimbabwe?
    Ambassador Thomas. Well, thank you for that question, 
Senator.
    Yes, the American taxpayer has been extremely generous in 
helping the people of Zimbabwe. This year, we have provided 
over $120 million to combat the scourge of HIV/AIDS. We are 
looking at not just transmission but prevention through 
nutrition, through education. And those are programs we have to 
continue. Under Ambassador Birx's leadership, we are looking at 
an aggressive way of auditing our program to make sure the 
taxpayer moneys continue to be well spent.
    If confirmed, sir, I would be looking forward to working 
with the Senate and the House in developing new ways of 
assisting the people in a country where over 15 percent of the 
population is suffering from HIV/AIDS.
    Senator Markey. Thank you.
    Ms. Furuta-Toy, Equatorial Guinea is--and I did not know 
this--the third-largest producer of oil in Africa, and yet 75 
percent of their people live in poverty. And unfortunately, 
that is an all too frequent statistic around the world with 
countries that have oil resources.
    Do you have any recommendations as to what help we could 
give to Equatorial Guinea to diversify their economy to broaden 
a base of growth so that it affects more families positively in 
that country?
    Ms. Furuta-Toy. Senator, thank you for that.
    The disparities between the income and the poverty levels 
in Equatorial Guinea are extreme, and it is something that, 
should I be confirmed, I would like to be able to focus a 
little bit of the U.S. Government attention on trying to make 
sure that the revenues from the oil industry and from other 
businesses are better distributed across the country.
    One of the ways that I think we can encourage the 
government to move forward is by supporting it in its 
reapplication actually to the Extractive industries 
Transparency Initiative, EITI. The government announced last 
year that it would reapply to EITI, and this will mean that it 
has to bring in civil society. It has to declare its revenues. 
And the result of that should be that the public will better 
understand what actually is out there and how better they can 
benefit across the board.
    Should I be confirmed, we will continue to support the 
improvement in education, health, sanitation, and other social 
issues that many of the U.S. companies that are in Equatorial 
Guinea right now are supporting through their corporate social 
responsibility programs.
    Senator Markey. Good. Thank you.
    Ms. Furuta-Toy. Thank you.
    Senator Markey. Mr. Hankins, could you take us back to the 
outbreak of the Ebola crisis and look at the three countries 
and give us a little tutorial on why it was that Guinea was so 
much less effective in its response, in its health care 
infrastructure capacity to be able to deal with this issue than 
the other countries?
    Mr. Hankins. Yes, Senator. It started there and it started 
in the area of the country in the Forestiere region, which is 
the part that is hardest to reach and historically has been one 
of those least served. In some sense, there was a basis of a 
health system. It is the only country of the three where we did 
not evacuate our personnel because we saw a basis to continue 
than protection of our personnel there.
    It is also a country where there was a huge problem in 
terms of public acceptance of government response. It is a 
country where we saw health care workers killed by villagers 
who were afraid of the response. And when that happened, then 
the Government of Guinea, trying to figure out how to respond 
and initially responding with a very heavy military presence, 
which only exacerbated the situation.
    It is also one where, frankly, we do not have and we did 
not have that strong a French-speaking component within our CDC 
and USAID. Those elements were found and eventually helped 
build then the response.
    So it has been a country where trying to get past public 
distrust of facilities has been difficult. I know Peace Corps 
staff in the country were, in fact, very important because they 
had the contacts with traditional leaders, with imams, which 
eventually helped turn the situation in terms of having a more 
effective government approach to the population.
    Thank you, Senator.
    Senator Markey. Thank you.
    And, Ms. Etim, when Chairman Flake and I were with the 
President in Ethiopia, we were part of the signing of a deal to 
produce 1,000 megawatts of geothermal power, which was just 
potentially the beginning of that incredible potential growth 
in electricity from indigenous sources inside of Ethiopia. Can 
you talk a little bit about, going forward, what you see as the 
biggest challenges to making it possible to unleash all of this 
capacity, which is latent, on that continent using USAID and 
other agencies as kind of the fulcrum, the lever to ensure that 
we telescope the time frame to ensure that that electrical 
generation does reach the business and consumer sectors in each 
of those countries?
    Ms. Etim. Thank you for raising that question.
    As you mentioned, being in Ethiopia at the signing of the 
first phase of Corbetti's power project was very exciting.
    We, I think, could only identify two major challenges going 
forward to the sustainability of Power Africa. One I think is 
the continued commitment of partners and of people's 
willingness to stay the course. I think that we have seen 
tremendous successes over the past few years of Power Africa, 
but we also know that governance is going to be a major issue. 
And so when you start coming up against these barriers and 
looking at where, going forward, the results are--we have a 
tremendous goal of tripling access to power now--we are very 
concerned that people will start backing away from the 
commitments. And I think if you look at the challenge of 
governance and countries not being as transparent as they need 
to and not being able to unlock some of the power there but 
also I think on our partners' and I think the general public's 
commitment to staying the course and making sure that we have a 
long-term vision for this initiative.
    Senator Markey. Thank you.
    Senator Flake. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to all the witnesses. Your records individually 
are quite extraordinary. And I think we do a good job of always 
thanking especially now members of our armed services who serve 
repeated deployments often to places that might not have been 
their first choice, sometimes in high threat areas where they 
cannot bring their family, but I do not think we do a good 
enough job of thanking those like you who are in State or some 
of the other agencies where you are small ``a'' ambassadors for 
us every day. So thank you for your careers in this area. And 
congratulations on your nominations.
    I am on the Armed Services Committee and I sort of have an 
armed services question. In the aftermath of the horrible 
tragedy at Benghazi, decisions were made to augment embassy 
security around certain high-threat posts. A number of those 
posts are in Africa. So we have built up a little bit of 
additional military capacity.
    But at the same time, there have also been increasing 
requests from African governments for U.S. presence in joint 
operations or training. There is a number of special purpose 
Marine air-ground task forces that are assigned out of AFRICOM 
that are working in different countries in Africa on joint 
exercises and counterpoaching, countertrafficking, 
counterterrorism. I just am curious, especially for my four 
over on this side in the countries where you are going to be. I 
would love to know anything about the kind of current state of 
mil-to-mil relationships, and is U.S. military presence in 
these kind of exercises accepted, and is it working to our 
benefit.
    Ambassador Jackson. Thank you, Senator Kaine, and it is 
great to see you again. I hope you will visit Ghana, just as 
you visited Morocco when I was there.
    Security cooperation in Ghana is excellent. Ghana is a 
member of the African contingency operations and train and 
assistance program. It is a member of the African Rapid 
Preparedness Initiative. And we have done a number of major 
military exercises there. We deployed about 300 marines there 
earlier this year as we looked at events in the region on a 
contingency basis, and there will be a major international 
exercise there next year. So I am very satisfied with our 
security cooperation in Ghana. And Ghana's contribution to 
peacekeeping has meant that our people are safe which is my 
highest priority.
    Thank you.
    Senator Kaine. Ambassador Thomas.
    Ambassador Thomas. Thank you, Senator.
    Senator, we have sanctions against Zimbabwe and its 
military because of the pernicious use of the security forces 
during the elections. This is something that hailed from even 
the Rhodesian days when the security forces were used to 
intimidate people. So at this time, we do not have relations. 
However, if Zimbabwe's Government establishes reform in the 
future, has free and fair elections, transparency, reduces 
corruption, and endorses human rights, that is something that 
we would be willing to talk to the United States Senate and 
President Obama and the administration about.
    Senator Kaine. Thank you, Mr. Ambassador.
    Ms. Furuta-Toy. Senator, thank you.
    Because of the current concerns about the human rights 
situation in Equatorial Guinea, we do not have direct military 
support for the Government of Equatorial Guinea, but as I 
mentioned earlier to Senator Markey, we have supported the 
Government of Equatorial Guinea's participation in some 
regional exercises.
    Senator Kaine. Thank you.
    Mr. Hankins.
    Mr. Hankins. Senator Kaine, in Guinea, we are building a 
new relationship with the military. It is only in the last 5 
years that the military came under civilian authority, having 
suffered from coups in the past. Our main emphasis right now is 
using Guinean troops or helping support Guinean troops for 
peacekeeping operations in Mali where they have accepted then 
one of the more difficult regions right on the border with 
Algeria. But we are still well aware that you have members in 
the military that were implicated in the September 2008 stadium 
massacre. So it is a careful relationship on building a 
democratic military and security system while still taking 
advantage of Guinea's willingness to participate in regional 
crises.
    Senator Kaine. Thank you.
    Ms. Etim, the United Nations adopted sustainable 
development goals last week, sort of setting out for the next 
15 years a whole series of efforts to reduce extreme poverty, 
promote public health, educational opportunities, and advance 
other human development goals. These goals sound very similar 
to some of the main areas of focus for USAID. But I just wonder 
if you have thoughts about how in your position in Africa you 
and your team will work to advance the U.N.'s recently 
announced goals.
    Ms. Etim. As you rightly point out, Senator, it is not a 
coincidence that the goals reflect the newly revamped mission 
statement for USAID. Working in the leadup to the sustainable 
development goals summit over the course of the past week, 
USAID has been in partnership with a number of countries to 
actually come on line and basically say what would happen if 
the world focused its attention in a coordinated manner with 
the World Bank, other donors, private sector partners, civil 
society organizations to look at measuring sustainable ways in 
the next generation of actually ending extreme poverty. It is 
an extremely ambitious goal. I think that the agency, coming 
online with that, has changed the way it has been doing 
business by really looking at a lot of institutional causes of 
poverty from looking at food security, through Feed the Future, 
or looking at infrastructure, poverty, energy, poverty through 
Power Africa, I think looking at how we deliver relief 
assistance in effective ways through resiliency--this has been 
a major goal of ours, and it is something that we are thinking 
that, as you codify this worldwide, we will be able to take 
forward and have guiding principles and shared understandings 
and lessons with the rest of the world in this partnership as 
we go forward.
    Senator Kaine. Excellent. Thank you.
    Thank you, Mr. Chair.
    Senator Flake. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to stay with you, Ms. Etim. When I travel around 
the developed world and talk about opportunities for U.S. 
businesses and U.S. exports, it is rule of law, rule of law, 
rule of law. And so I wanted to just inquire to you as to the 
effect of some of the budget decisions we are making here on 
the ability to promote democracy and governance initiatives in 
Africa. The amount of money available to USAID and a larger sum 
to State has been declining to the point now where I think in 
2015, it was about $160 million overall for DG and that is down 
from just 2 years ago being up above 230. The President, I 
think, has made a request to essentially double that number 
into the low 300s.
    And I just wonder if you can give us a flavor as to what 
the difference is between having--and again, you are only 
accountable for a piece of this, but having twice as many 
resources as you do now to undergo democracy and governance 
initiatives, is this a matter of expanding programs in existing 
countries? Is this a matter of getting to countries that have 
fallen off the list? I mean, there are a number of critical 
countries that are not receiving any DG programming because of 
these cuts. What happens if we are successful in fulfilling the 
President's request?
    Ms. Etim. Thank you, Senator, for your question.
    If we are successful in fulfilling the President's request, 
I think you mentioned that we take an all-of-the-above 
approach. There are a number of countries that actually have 
been zeroed out, do not have democracy and governance budgets, 
and we would look at restoring and retaining those budgets.
    But I think most importantly we see Africa right now in 
terms of its transitioning. You had over 12 exercises, 15 
African electoral exercises in 2015. We have 20 coming up in 
2016. We know that the urgent needs right now are focused 
around how do you provide support for both those exercises but 
also looking at how do we look at the exercises that took place 
in 2015 in restoring and maintaining democracy there. You may 
have noticed also in the news we have a number of fragile 
states and fragile environments from Burkina Faso to Central 
African Republic to South Sudan to Burundi. We have a lot of 
conflicts crises there. And there I think we have a role as the 
United States Government in working in things like constitution 
strengthening, parliamentary strengthening, institution 
building.
    Obviously, even with this increased request, we will not be 
able to answer all of the needs on the continent, but I think 
that what we really look at is being able to deepen, I think, a 
lot of the investments and commitments that we do have looking 
to forward to, I think, a lot of the volatility that is 
upcoming in the next several years.
    Senator Murphy. I have thrown out this comparison before. 
But it is stunning that we complain about the lack of influence 
that America has around the world, and then we spend 0.1 
percent of our GDP on foreign aid compared to 1950 when we were 
spending 3 percent of GDP on foreign aid. It is not rocket 
science as to why we have a little bit less influence in some 
parts of the world.
    Ms. Etim, how about the question of flexibility? Someone 
came into my office a few months back and made a case as to how 
we could have done a better job of watching al-Shabaab move 
into the northern portions of Kenya, and had we had more 
flexibility of funds within USAID and State, that we could have 
done some work up front to try to strengthen institutions, 
governance, economic resources so as to try to prevent this 
terrorist organization from getting a foothold.
    Can we do more to give USAID the necessary flexibility? Are 
you too compartmentalized in terms of how you are forced to 
spend this money even as priorities and realities on the ground 
are shifting within fiscal years?
    Ms. Etim. You raise a very good point, and I think as all 
of my fellow panelists will probably point out, the increased 
flexibility for our missions and the embassies on the ground 
lead to, I think, more creative thinking and better 
programming.
    At the same time, we are able to focus, I think, within the 
constraints that we have been given on the main priorities that 
are actually facing the African Continent. And so a lot of the 
different ways that our funding comes is in the very critical 
areas of health and education. These are areas that USAID and I 
think overall the U.S. Government would be focused on.
    With your specific example with Kenya and the idea of how 
we actually deal with programs in complex crisis environments, 
there we require, I think, flexible sources of funding, and for 
that reason, typically when we make programming decisions 
bureaucratically we put ESF funding--the most flexible funding 
that USAID has available we direct at those types of countries 
and accounts because we know that programs are going to change. 
Like the South Sudans of the world and like the Somalias, these 
are areas that require flexibility. In more established 
countries like Kenya, that is where you, I think, come into 
some of the questions that you have just raised where you have 
partners over a long period of time, but you also have a lot of 
dynamic and changing situations. And in that environment, we 
look at our own programming cycle and we have made changes in 
the way we have done business so that we can actually work more 
closely with our friends on the humanitarian side to come up 
with more flexible ways of using--and making sure that we are 
using more flexible means of programming humanitarian funds and 
not just having stark relief to development trajectories but 
actually applying a resilience model that allows us to use what 
pots of money are necessary to address the actual challenges 
that are on the ground.
    So, of course, we will always welcome as much flexibility 
as possible. That is something that I think is a given. But I 
also think some of the onus is on us as an agency to look at 
really programming, I think, in more modern ways and looking at 
the challenges from an entire holistic perspective.
    Senator Murphy. Well, put more of the onus on us. I think 
we can do more to give you that additional flexibility. I 
appreciate you taking ownership within the agency. But we 
certainly can step up to the plate and do more.
    Thank you all for stepping up yourselves to this kind of 
laudable service. I look forward to working with you on your 
confirmation process.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    And I want to thank our witnesses today and my colleagues 
for being here. We had five or six members here for one of 
these hearings on a get-away day. That speaks well for the 
interest and the importance of your service.
    I want to thank also your family members for being here. We 
are aware and appreciate the sacrifices that they make and that 
you make in many cases to be away from them. Mr. Hankins, you 
mentioned 26 years of service or 16?
    Mr. Hankins. Sixteen assignments.
    Senator Flake. A long time. And we always find that family 
members--a lot of them end up serving in our military or in our 
diplomatic service as well or find other ways to serve based on 
your example. So thank you for what you are doing and thank you 
to the family members for the sacrifices that you put in.
    The hearing record will remain open until Friday, for the 
benefit of the members. And if the witnesses could answer any 
questions that come your way promptly so they can be put as 
part of the hearing record, it would be appreciated.
    And with the thanks of the committee, this hearing stands 
adjourned.
    [Whereupon, at 3:07 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


   Responses of Robert P. Jackson, Nominated to be Ambassador to the 
     Republic of Ghana, to Questions from Members of the Committee

               ambassador-designate jackson's responses 
                    to questions from senator cardin
    Question. In what areas have President Mahama's administration's 
anticorruption efforts successful, and how could they be made more so? 
What actions, if confirmed, will you take to assist with the 
government's anticorruption efforts?

    Answer. The Government of Ghana has repeatedly stated its 
commitment to combat corruption. The recent decision to suspend several 
High Court judges and lower court judges and magistrates as a result of 
an expose done by an investigative journalist underscores the 
Government of Ghana's commitment to this issue. Ghana's national 
anticorruption efforts are outlined in its National Anti-Corruption 
Action Plan, which came into force last year. We are supporting 
anticorruption efforts in Ghana through several programs, including 
through a grant to the Ghana Integrity Initiative, Ghana's local 
Transparency International Chapter. USAID supports efforts to improve 
civil society reporting, tracking and advocacy for stronger 
anticorruption work in Ghana. The project fosters the participation of 
civil society institutions in identifying, reporting, and tracking 
incidences of corruption in public agencies. USAID is also working to 
strengthen the institutional capacity of the Public Accounts Committee 
(PAC) of Ghana's Parliament to effectively scrutinize the Auditor 
General's reports on the financial performance of public institutions, 
expose malfeasance by persons in public office, and demand followup on 
recommendations and referrals.
    If confirmed, I intend to continue these programs and ensure that 
anticorruption issues are a regular part of our interactions with the 
highest levels of the Government of Ghana.

    Question. The next general elections are in December 2016, and by 
all accounts will be closely contested. What programs and activities is 
the United States funding to ensure credible peaceful elections, and 
what actions will you take if confirmed as Ambassador to help ensure 
continued the continued growth of democratic institutions?

    Answer. Our assistance aims to enhance the transparency and 
credibility of Ghanaian Electoral Commission (EC) operations. The EC is 
developing a new strategic plan for electoral reforms in advance of the 
2016 elections. USAID will support the implementation of reforms, with 
a particular focus on improving the EC's communications capabilities as 
well as the capacity of its field staff to properly administer 
elections. We will also enable the EC to develop and implement a 
communications strategy to more effectively engage all stakeholders on 
the steps it is taking to ensure a free and fair election process in 
2016.
    Our assistance will also strengthen civil society's role in 
ensuring credible and nonviolent elections. USAID will help local 
organizations engage the EC, political parties and other stakeholders 
on electoral reform, support civil society organizations or CSOs to 
conduct civic education programs aimed at promoting tolerance and 
peaceful and credible elections, and help train CSOs at the grassroots 
to more effectively monitor elections. We will also train political 
parties (especially their youth wings) on poll watching and nonviolent 
dispute resolution to prevent out breaks of election-related violence.
    Our assistance will also strengthen conflict resolution mechanisms 
around elections. Ghana's National Peace Council (NPC)--an independent 
government council with membership drawn from Ghana's major religious 
groups--has played an important role in resolving election-related 
conflict and defusing tensions in previous elections. Our support will 
enable the NPC to continue to play an integral mediation role during 
the pre- and post-electoral period.
    As Ambassador, I will personally engage Ghanaian political leaders, 
the EC, civil society and the media in an effort to ensure a fair, 
transparent, and peaceful election. I will also ensure that after this 
election, our assistance to strengthen democratic institutions 
continues apace.

    Question. What explains the government's relative failure to more 
aggressively counter Trafficking in Persons and what will you do if 
confirmed as Ambassador to encourage the Ghanaians to provide needed 
resources to the Anti-Human Trafficking Unit of the Ghana Police 
Service?

    Answer. Antitrafficking efforts in Ghana are hampered by a lack of 
operating budgets for law enforcement and protection agencies. As a 
result, the Anti-Human Trafficking Unit continues to rely heavily on 
foreign donors and NGOs to support its efforts. The government also did 
not provide any funding for the human trafficking victim services or 
for its two shelters.
    In June 2015, the Government of Ghana signed the first Child 
Protection Compact (CPC) Partnership with the United States, which will 
facilitate investment of $5 million in U.S. foreign assistance to aid 
the Government of Ghana to reduce child trafficking and improve child 
protection. The Partnership, the first of its kind globally, is a 
jointly developed, multiyear plan aimed at bolstering efforts of the 
Government of Ghana and Ghanaian civil society to address child sex 
trafficking and forced child labor within Ghana. The Government of 
Ghana stated that it intends to dedicate increasing levels of staff 
resources and operating budget funding to support this initiative, 
including funding for the Human Trafficking Fund.
    If confirmed as Ambassador, I will continue to raise this issue 
with the highest officials in the Ghanaian Government, impressing upon 
them that their current budgetary constraints should not preclude the 
government from providing financial support and resources to all 
Ghanaian agencies committed to combating trafficking in persons, 
investigating and prosecuting trafficking cases, and supporting 
trafficking victims.

                               __________

    Responses of Harry K. Thomas, Nominated to be Ambassador to the 
    Republic of Zimbabwe, to Questions from Members of the Committee

                ambassador-designate thomas's response 
                   to a question from senator corker
    Question. The U.S.-Zimbabwe bilateral relationship has been poor 
for decades. Do you believe that a possible near-term Presidential 
transition in Zimbabwe is an opportunity for the growth of democracy 
and freedom in that country? If so, how would you advise the U.S. to 
engage during a Presidential transition to promote such values?

    Answer. We are focused on principles of respect for the rule of 
law, human rights, and democratic processes. We would welcome credible, 
economic, and governance reforms supporting these values at any time, 
and do not expect a sudden departure from current policy in the near 
term. Dialogue and respectful engagement remain central to moving our 
bilateral relationship forward, consistent with our values and 
policies. The United States continues to support progress toward a 
Zimbabwe that serves the needs of the Zimbabwean people through 
humanitarian assistance and continued support for Zimbabwean civil 
society, which is often the leading independent voice critical of the 
Zimbabwean government's policies.

                               __________
                ambassador-designate thomas's responses 
                    to questions from senator cardin
    Question. What U.S. democracy and governance programs are under way 
in Zimbabwe, and how effective have they been and what programs would 
be most feasible at present? What are the primary challenges facing 
USAID's partners? If confirmed, what activities do you plan to 
undertake to help Zimbabwean efforts to open political space and 
support civil society?

    Answer. U.S. technical assistance boosts the ability of citizens 
and nongovernmental groups to participate in discussions on the future 
direction of Zimbabwe. One local USAID partner coached rural women 
farmers to engage for the first time with the Parliamentary Committee 
on Lands and Agriculture and voice challenges they face, including 
limited access to communal land, lack of access to markets and credit 
facilities, delayed payments by the Grain Marketing Board, and 
corruption. This activity shows that with training, rural Zimbabwean 
women can be compelling advocates to hold political leaders 
accountable. Grassroots-level programs are effective in empowering 
citizens to engage government and demand accountability. USAID programs 
create a more secure environment for communities and civil leaders to 
engage in political processes and affect a more democratic system of 
governance. Challenges for partners include long-standing government 
restrictions on civil society organizations, independent media, 
political parties, activists, and regular citizens that impede 
fundamental freedoms. If confirmed, I would continue U.S. support for 
Zimbabwean civil society to promote community development efforts and 
service delivery, and to retain its role as the leading independent 
voice calling the Zimbabwean Government to account for policies which 
undermine democracy and stability.

    Question.  Impunity for politically motivated violence remains an 
issue in Zimbabwe. Cases stemming from elections related violence in 
2008 remain unsolved. If confirmed, what can you do to encourage the 
government to make progress in these cases, and end security sector 
impunity? Do you see a role for USAID in any future efforts to reform 
the security sector?

    Answer. Progress toward ending security sector impunity is a 
critical component in assessing the status of human rights and rule of 
law in Zimbabwe. If confirmed, I would continue support for 
strengthening institutions, such as Parliament, the human rights 
commission, courts, and civil society to help create a Zimbabwe in 
which all government institutions are responsive to the needs of the 
people and support rule of law and just governance. I would aim to 
strengthen these institutions' responsiveness to constituents, and 
support for victims of violence and those who advocate on their behalf. 
I would continue to promote our human rights report to highlight abuses 
or areas for improvement. USAID plays a role in these efforts, lending 
its expertise in peaceful conflict mitigation and resolution 
initiatives.

                               __________

   Responses of Julie Furuta-Toy, Nominated to be Ambassador to the 
    Republic of Equitorial Guinea, to Questions from Members of the 
                               Committee

              ambassador-designate furuta-toy's response 
                   to a question from senator corker
    Question. The U.S.-Equatorial Guinea bilateral relationship has 
been difficult for decades. Equatorial Guinea has fabulous natural 
resource wealth yet its people are some of the poorest in the world. 
The regime denies basic freedoms to its people, and is profoundly 
corrupt. Is there anything the U.S. should be doing differently to try 
to change the status quo in that country? What opportunities are there 
to promote freedom and democracy?

    Answer. The United States diplomatic relationship with Equatorial 
Guinea is frank and honest. We have repeatedly encouraged President 
Obiang--the longest-serving leader on the African continent--to embrace 
democratic reform and rule of law, and support greater political and 
economic transparency.
    If confirmed, I will encourage the Government of the Republic of 
Equatorial Guinea to remove legal and practical barriers to the 
formation and free operation of political parties in keeping with the 
commitments of the November 2014 National Dialogue, and promote a free, 
fair, and transparent electoral process.
    In the lead up to Presidential elections in 2016, I will continue 
to urge the government to establish an independent electoral commission 
and invite international observers. The 2016 Presidential elections are 
an opportunity for Equatorial Guinea to demonstrate its commitment to 
democracy and tolerance of independent opposition political parties.
    I will also emphasize that the success of Equatorial Guinea's 
reinstatement in the Extractive Industries Transparency Initiative is 
largely dependent on its treatment of civil society and will underscore 
that for the United States to support Equatorial Guinea's candidacy, 
civil society organizations must be allowed to offer their views on 
transparency and governance issues freely and without any adverse 
consequences.

                               __________
              ambassador-designate furuta-toy's responses 
                    to questions from senator cardin
    Question.  If confirmed, how do you plan to engage the government 
of Equatorial Guinea regarding its lack of fiscal transparency and high 
levels of corruption? What actions can you take as Ambassador to 
effectively help counter corruption and increase transparency?

    Answer. If confirmed, I will continue to urge the Government of 
Equatorial Guinea to practice better governance, increase transparency 
and invest more in its people, particularly in education and health.
    I will continue to support Equatorial Guinea's efforts to prepare 
for eventual reapplication to the Extractive Industries Transparency 
Initiative (EITI) as a means to promote transparency and accountability 
in the receipt and use of oil and gas revenues. I will also emphasize 
to the Government of Equatorial Guinea that its support for the 
development of civil society and civil society's participation in EITI 
is essential to achieve membership in EITI. Setting a good example, 
U.S. petroleum companies in Equatorial Guinea have held workshops 
providing information on their operations to members of civil society, 
which I will continue to encourage.

    Question. If confirmed, how will you help improve political, civil 
and human rights?

    Answer. The Department considers human rights promotion the top 
priority in our bilateral relationship with Equatorial Guinea. If 
confirmed, I will continue to document human rights abuses in the 
annual human rights report, press the Government of Equatorial Guinea 
to fully respect international human rights law, and encourage the 
implementation of Equatorial Guinea's law concerning human trafficking.
    If confirmed, I will encourage the government to allow the 
political opposition to operate freely, in keeping with the commitments 
of the 2014 National Dialogue, and promote a free, fair and transparent 
electoral process that includes input from civil society organizations. 
I will urge the government to implement an independent electoral 
commission and invite international observers. The 2016 Presidential 
elections are an opportunity for Equatorial Guinea to demonstrate its 
commitment to democracy and tolerance of independent opposition 
political parties.

                               __________

   Responses of Dennis B. Hankins, Nominated to be Ambassador to the 
     Republic of Guinea, to Questions from Members of the Committee

               ambassador-designate hankins's responses 
                    to questions from senator corker
    Question.  Based on his past willingness to use all available means 
to gain and keep power, there is every indication that President Alpha 
Conde will be reelected President in the upcoming election. What 
policies would you recommend as U.S. Ambassador to demonstrate the U.S. 
Government's negative reaction to the elections which are already 
showing signs of fraud?

    Answer. The United States has supported Guinea's transition to 
democracy since 2010, when Alpha Conde became Guinea's first 
democratically elected President. The United States is working closely 
with the international community to encourage a free and fair 
Presidential election. Our engagement includes sustained dialogue with 
the government, political party leaders, the press, and civil society; 
technical support to the electoral commission; and support for civic 
and voter education, justice and security sector reform, and journalist 
training. We also focus on the people-to-people aspects, including 
sending members of the U.S. mission in Conakry around the country to 
conduct townhall meetings for political parties, NGOs and the media, 
and partner with alumni of official U.S. exchange and training programs 
to hear directly from them and carry our message of peaceful, free, and 
fair elections. In addition, the United States is also deploying an 
electoral monitoring mission with an unprecedented 120 observers 
throughout Guinea during the election period. While Guinea's democratic 
trajectory is generally positive, the United States continues to 
discuss concerns about electoral processes and broader democratic 
trends with the government. If confirmed, I plan to continue these 
important discussions at every opportunity and to seek creative ways to 
partner with nongovernment actors to amplify these efforts.

                               __________
               ambassador-designate hankins's responses 
                    to questions from senator cardin
    Question. Guinea does not comply with the minimum standards on 
trafficking, but granted a waiver from an automatic downgrade to Tier 
3, and remains on the Trafficking in Person's Tier 2 Watch List for the 
third year in a row.

  <diamond> (a) What steps, if confirmed, do you plan to take to 
        encourage the government to investigate and prosecute 
        trafficking cases?
  <diamond> (b) Are there specific programs and activities that we 
        should undertake with law enforcement to assist Guinea's 
        efforts?
  <diamond> (c) What steps will you take to encourage the government to 
        increase penalties for forced prostitution?

    Answer. The Government of Guinea does not fully comply with the 
minimum standards for the elimination of trafficking; however, it is 
making significant progress. If confirmed, I will encourage the 
Government of Guinea to strengthen its antitrafficking law enforcement 
efforts and similarly increase measures in place to better protect 
victims and prevent people from becoming victims of trafficking. My 
team and I will continue to raise our concerns with the Government of 
Guinea at all levels.
    In September 2015, with funding from the Department of State's 
Office to Monitor and Combat Trafficking in Persons, the International 
Organization for Migration (IOM) trained law enforcement officials and 
members of the Guinean National Trafficking in Persons Committee in 
order to enhance their capacity and coordination efforts to combat 
trafficking. Our training built upon a similar program in Senegal that 
in 2014 led to the successful discovery and release of minors destined 
for forced labor. If confirmed, I will encourage the government to 
undertake similar training to build the capacity of the authorities to 
detect, interdict, and prosecute such criminal offenses.
    The 2015 Trafficking in Persons Report states that penalties for 
forced prostitution are sufficiently stringent, but not commensurate 
with those prescribed for other serious crimes, such as rape. If 
confirmed, I will encourage the Government of Guinea to increase 
penalties for forced prostitution. I will work to ensure the Government 
of Guinea comes into compliance with this minimum standard of the 
Trafficking Victims Protection Act, and continues efforts to battle the 
horrible scourge that is human trafficking.

                               __________

Responses of Linda Etim, Nominated to be Assitant Administrator of the 
U.S. Agency for International Development, to Questions from Members of 
                             the Committee

          assistant administrator-designate etim's responses 
                    to questions from senator corker
    Question.  African leaders across the continent are maneuvering to 
extend their terms past constitutional limits. A number of African 
countries have also enacted security and NGO laws that are being used 
against civil society and the political opposition. Do you believe the 
democratic gains made since the 1990s are eroding? What effort is USAID 
play to reverse this trend in light of a constrained fiscal 
environment?

    Answer. This is a difficult time for democracy--in Africa and 
around the world. Academic and think tank data, as well as the U.S. 
Government's own monitoring, points to a trend in recent years of 
backsliding in both the less democratic countries and the stronger 
democracies of Africa. Of great concern are the actions by governments 
in some countries to restrict the freedom of expression and 
association, and by some leaders to cling to power despite 
constitutional term limits.
    Efforts to remove constitutionally mandated term limits by sitting 
Presidents are a symptom of deeper democratic deficits, including 
concentration of power in the executive branch, weak rule of law, lack 
of political space for opposition political parties and civil society, 
and limited media freedoms. Although some countries in sub-Saharan 
Africa may be backsliding, others are reinforcing democratic norms, as 
evidenced by recent electoral exercises in Nigeria and Zambia. In 
addition, the USAID-supported Afrobarometer public opinion data 
confirms that across the continent, democracy continues to be the 
preferred path.
    I understand the challenges of the current budget environment and 
am confident that USAID can achieve considerable progress within the 
budget constraints. As an agency, we have made efforts to locate 
additional resources for some of the highest priority needs on the 
continent in FY 2015, including in Kenya and Nigeria. In Nigeria, for 
example, sustained, long-term U.S. Government investment in the 
development of civil society networks and institutions like the 
Independent National Electoral Commission contributed to the historic 
transfer of political power witnessed in 2015. Continued investment is 
necessary to consolidate those gains.
    Additionally recognizing the importance of prioritizing democracy, 
rights and governance (DRG) investments, USAID's FY 2016 request for 
democracy, rights and governance programming reflects an increase over 
recent years. The request represents a 10 percent increase over the FY 
2015 request and a 100 percent increase over the FY 2014 actual level. 
USAID is also better integrating DRG principles into other development 
sectors, working with fellow U.S. Government colleagues in health, 
education, water and economic growth, to ensure that core human rights 
and governance principles are embedded in other sectors.
    USAID is committed to ensuring it remains a leader in the DRG 
sector. Guided by government policies, Presidential directives, and 
agency strategies, USAID supports numerous programs that foster good 
governance, promote access to justice, strengthen civil society, and 
reinforce effective and accountable institutions at all levels. As 
such, in 2013, USAID issued a new strategy on democracy, human rights, 
and governance, codifying a more holistic approach to DRG sector 
programming. This policy framework focuses on participation, inclusion, 
and accountability, while elevating human rights and integration of 
democratic governance approaches across economic and social sectors. 
The DRG strategy informs USAID's overall approach to DRG sector 
programming in Africa and provides guidance to missions appropriate for 
the context.
    For example, in countries making progress on democratization and 
where the government is generally supportive of human rights, the DRG 
strategy is designed to consolidate gains, prevent backsliding, and 
strengthen or create effective democratic institutions and culture that 
are self-correcting in the face of crisis. Although countries within 
this category are making progress, they may still be vulnerable to 
reversals.
    In countries where progress on democratic and political development 
is uneven, with some civil and political freedoms but with no genuine 
foundation for democratic governance and institutions, USAID programs 
generally promote political pluralism and citizen participation. 
Programs often focus on expanding the space for meaningful 
participation, as well as promoting genuine and fair political 
competition, through electoral reforms and monitoring and/or political 
party assistance. In these contexts, support to civil society, 
including nongovernmental organizations (NGOs) and independent media 
groups, helps to elevate citizen voice in, and oversight of, political 
processes and government practices. Strengthening and protecting an 
enabling legal and regulatory environment for civil society and media 
is also critical. Programs may also address the promotion of human 
rights and issues of inclusion, as well as increased government 
transparency and accountability through the integration of DRG 
approaches to social sector and economic growth programming.
    Finally, in countries where governments do not maintain democratic 
systems, respect human rights, or tolerate independent civic action, 
DRG programming emphasize support for democracy and human rights 
activists by working with NGOs, watchdog groups, independent media and 
political parties that are committed to democratic principles and value 
fundamental freedoms. Although additional precautions must be taken, 
DRG programming is still possible in these countries. Supporting 
citizens' access to independent information sources is critical in 
these environments since it can bolster free expression and strengthen 
impartial channels of information to citizens in spite of government 
dominance over official media channels.
    If confirmed, I look forward to continuing to work with and seek 
the committee's guidance as we address these critically important 
issues.

                               __________
          assistant administrator-designate etim's responses 
                    to questions from senator cardin
    Question. Corruption is a considerable impediment to development 
across the world, including in Africa. Endemic corruption has hindered 
growth in Nigeria, the continent's largest economy. It has 
significantly undermined development in South Sudan, and is a chronic 
problem in Angola and Kenya, to name just a few countries.

  <diamond> (a) What actions can the U.S. take to help African partners 
        address corruption, and will you commit to working with your 
        counterparts in the interagency to develop a comprehensive 
        action plan to help Africans combat corruption?

    Answer (a). The United States, through numerous assistance 
programs, works closely with countries around the world to build 
transparent and accountable financial and legal systems. The Department 
of State and the U.S. Agency for International Development (USAID) 
devote approximately $1 billion per year to anticorruption and related 
good governance programs.
    USAID's work to combat corruption in sub-Saharan Africa focuses on 
improving transparency and availability of information and increasing 
accountability between and among citizens and government institutions. 
As one of the commitments from the U.S.-Africa Leaders Summit, the 
United States and leaders of partner governments formed the Partnership 
on Illicit Finance (PIF), an initiative that brings African partners 
and the United States together to jointly address the generation and 
movement of proceeds from corruption and other financial crimes. The 
PIF has two main objectives: (1) examine illicit financial flows from 
Africa, and (2) develop national action plans to improve transparency 
and accountability in public and private sectors. Current members are 
Burkina Faso, Kenya, Mauritius, Liberia, Niger, and Senegal.
    Building on that commitment, during President Obama's trip to 
Africa in July 2015, the United States and the Government of Kenya 
signed a Joint Commitment to Promote Good Governance and Anti-
Corruption Efforts in Kenya to improve ethics, end money laundering and 
expand anticorruption legislation. The Joint Commitment will also 
leverage technology to reduce or eradicate opportunities for 
corruption, using tools such as citizen portals and eProcurement 
systems.
    This approach is consistent with the principles outlined in the 
post-2015 Development Agenda, which focuses on the need to build 
developing countries' capacity to mobilize domestic resources and 
attract private sector financing flows and assistance.
    In Nigeria, for example, USAID's approach to strengthen 
institutions of accountability and improve public financial management 
while increasing the involvement of the private sector and civil 
society in governance has yielded results. Starting in 2006, USAID 
support helped civil society, government and the private sector to come 
together and establish the Nigerian Extractive Industries Transparency 
Initiative (NEITI). In 2013, NEITI, working in collaboration with 
relevant government agencies, recovered $2 billion in taxes owed by oil 
and gas companies.
    Government reform alone is not enough to be successful--support for 
government reformers must be complemented by support for the work of 
civil society organizations. Across Africa, USAID is building the 
capacity of civil society networks and coalitions to promote 
transparency and accountability. These coalitions engage with civil 
society organizations to increase oversight of the budget process, 
raise the level of public discourse on issues of transparency and 
accountability, and increase participation of the citizenry in 
governance for equitable growth. In Tanzania, for example, USAID is 
increasing the capacity of civil society to monitor transparency in 
local government by engaging citizens in local budgeting, planning and 
public expenditure tracking.
    As a founding member of the Open Government Partnership (OGP), the 
United States partners with governments and civil society leaders 
around the world to promote the more transparent, effective, and 
accountable governance and institutions that are necessary for 
development gains to be sustained. OGP was launched in 2011 with 8 
members and has grown to include 65 participating countries that 
together have made over 2,000 commitments to make government more open, 
accountable and responsive to citizens. In sub-Saharan Africa, Cape 
Verde, Ghana, Kenya, Liberia, Malawi, Sierra Leone, South Africa, and 
Tanzania are OGP members and continue to make good on their commitments 
to open government. Over the last 3 years, USAID has provided just 
under $1 million to the OGP Support Unit (approximately $300-$350 
thousand per year, 2012-15). USAID Missions in Africa have also 
supported OGP in a variety of ways, from sponsoring government/citizen 
consultations to implementing OGP-related commitments.
    USAID's work in this area is guided by our strategy on democracy, 
human rights, and governance, which focuses on the principles of 
accountability and citizen engagement to offer a framework for 
addressing issues such as corruption more effectively. Our work in 
these areas is fully complementary of the work of other U.S. Government 
agencies on combating financial crimes and strengthening the rule of 
law. The 2015 Quadrennial Diplomacy and Development Review (QDDR) calls 
upon the entire U.S. Government to use the OGP as a tool to advance 
transparent, accountable, and participatory governance. If confirmed, I 
will continue to work with partners in the interagency to address 
corruption in Africa through mechanisms such as OGP, NEITI, and PIF, as 
well as engagement with civil society.

  <diamond> (b) Funds for democracy and governance programs and 
        activities in FY 2015 (approximately $160 million) are much 
        lower than allocations in FY 2013 ($231 million), FY 2012 ($266 
        million), and FY 2011 ($244 million). What will you do to 
        prioritize democracy and governance programs and activities and 
        advocate for additional funding levels if confirmed?

    Answer (b). The U.S. Government cannot effectively achieve 
sustainable outcomes in health, food security and climate change in 
Africa without simultaneously investing in good governance, 
transparency, accountability, and inclusion. Decreased or inconsistent 
funding levels for democracy, rights, and governance (DRG) make it more 
difficult for USAID to make strategic investments for long-term change 
in the African countries in which we work.
    To ease the impact of reduced DRG funding levels in the immediate 
term, in my role as Deputy Assistant Administrator for Africa, I 
successfully advocated for the allocation of additional USAID FY 2015 
DRG resources for some of the highest priority needs on the continent 
in countries such as Kenya, Uganda, Ethiopia, and Nigeria. In Nigeria, 
for example, sustained, long-term U.S. Government investment in the 
development of civil society networks and institutions like the 
Independent National Electoral Commission contributed to the historic 
transfer of political power witnessed in 2015. Continued investment is 
necessary to consolidate those gains.
    Recognizing the importance of prioritizing DRG investments, USAID's 
FY 2016 request for DRG programming ($301 million) reflects an increase 
over recent years. The request represents a 10-percent increase over 
the FY 2015 request and a 100-percent increase over the FY 2014 actual 
level. If confirmed, I will continue to advocate for a robust budget 
for DRG programs in Africa to ensure our program needs are met and that 
USAID remains a leader in the DRG sector on the continent.
    At the same time, I understand the challenges of the current budget 
environment and believe that USAID can take steps to prioritize DRG 
programs even in the face of budget constraints. For example, USAID 
issued a new strategy on democracy, human rights, and governance in 
2013, codifying a more holistic approach to DRG sector programming. 
This policy framework focuses on participation, inclusion, and 
accountability, while elevating human rights and integration of 
democratic governance approaches across economic and social sectors. 
The DRG strategy informs USAID's overall approach to DRG sector 
programming in Africa and provides guidance to missions appropriate for 
the context. As a result, USAID is also better integrating DRG 
principles into other development sectors, working with fellow U.S. 
Government colleagues in health, education, water and economic growth, 
to ensure that core human rights and governance principles are embedded 
in other sectors.
    For example, in Ethiopia, the Social Accountability project is 
providing new forums for citizens to monitor the Government of 
Ethiopia's service delivery commitments and to advocate for 
improvements, and USAID is integrating these methods in the education 
sector to drive public oversight of results. Specifically, with USAID 
support, parent-teacher associations will use methods such as community 
ratings of education quality to pressure government offices to maintain 
reading enrichment support through libraries and teachers. 
Additionally, in the health sector, USAID is standing up 2,500 
governance boards for health centers and hospitals across Ethiopia, 
where local officials decide how to spend patient fees and improve 
services. USAID's democracy and health teams are collaborating to bring 
valid citizen input into these boards and feed into budget decisions of 
hospitals and health centers.
    If confirmed, I will continue to support USAID's strategic approach 
to DRG programming and the DRG integration agenda, while advocating for 
adequate funding for DRG activities in Africa.

    Question. In September 2014, President Obama issued a Presidential 
Memorandum directing agencies engaged abroad to elevate and strengthen 
the role of civil society; challenge undue restrictions on it; and 
foster constructive engagement between governments and civil society.

  <diamond> (a) What efforts has USAID undertaken in Africa to date in 
        response to this directive, and in particular how is USAID 
        challenging restrictions on civil society in countries like 
        Ethiopia and Uganda, where governments have sought to tighten 
        control?

    Answer (a). In support of the 2014 Presidential Memorandum, USAID 
is promoting the robust and critical role civil society plays in 
African countries to ensure effective and inclusive development. USAID 
has developed a three-pronged strategy to support civil society in 
closing spaces: focus on prevention, including monitoring the legal 
enabling environment for civil society; focus on adaptation, designing 
flexible programs that can respond to on-the-ground changes; and 
continue to support civil society, even in restrictive environments.
    For example, in Ethiopia, we are monitoring the environment while 
supporting human rights, strengthening civil society engagement, and 
enhancing governance through social accountability activities that 
provide forums for citizens to monitor government's service delivery 
commitments and advocate for improvements.
    In Kenya, USAID has supported civil society organizations working 
to raise awareness and question the restrictive amendments to the 
Public Benefit Organizations Act. In Uganda, USAID is supporting 
nongovernmental organizations (NGOs) to advocate effectively with 
Members of Parliament for changes to restrictive language in the draft 
NGO bill. The updated draft version of the bill under consideration 
reflects the combined efforts of concerted NGO advocacy.
    Within the next year, USAID--with several other donors--also plans 
to launch two Civil Society Innovation Hubs in the region to facilitate 
civil society networking and partnerships. USAID held planning 
workshops with civil society leaders this past spring and summer in Dar 
Es Salaam, Tanzania, and Dakar, Senegal. These Hubs will connect civil 
society organizations at the regional and global levels and enable 
access to tools and technologies to bolster their work.
    Meanwhile, USAID also has developed an analytic tool, the Civil 
Society Organization Sustainability Index for sub-Saharan Africa, which 
since 2009 has tracked trends that monitor the progress and setbacks 
faced by civil society organizations. The latest edition can be found 
at: https://www.usaid.gov/africa-civil-society.
    USAID provides a wide range of assistance, helping civil society 
organizations to become more effective and sustainable in their roles 
in service provision, policy advocacy, and government monitoring and 
oversight. For example, in Liberia, USAID's Civil Society and Media 
Leadership program aims to help civil society organizations expand 
their role from delivering services to engaging in governance and 
policy processes through advocacy training, networking, and mentorship. 
USAID activities seek to provide organizations with the skills and 
tools necessary to promote access to information and employ effective 
watch-dog strategies.
    In response to the closing space trend, USAID also supports local 
civil society efforts to advocate for strong legal protections and 
operating environments through programs such as the Legal Enabling 
Environment Program (LEEP). LEEP, a $6 million global instrument funded 
by USAID, provides technical assistance to civil society organizations 
and supports local capacity and research to advance local legal 
reforms. In November 2014, USAID, in conjunction with the Community of 
Democracies and Civicus, organized a workshop in Pretoria, South 
Africa, that convened African human rights defenders and lawyers who 
shared best practices as well as identified recommendations to improve 
the enabling environment for civil society in their respective 
countries.
    LEEP efforts complement the State Department's diplomatic 
strategies as well as those of others from the international community. 
USAID, on behalf of the United States Government, is also an active 
member of the Community of Democracies which monitors legal 
restrictions to civil society organizations' freedoms through draft 
laws and regulations. The Community of Democracies is an international 
coalition of member states that counters the civil society closing 
space trend through diplomacy and campaigns.

  <diamond> (b) If confirmed, will you commit to developing a strategy 
        for USAID to undertake democracy and governance activities in 
        Africa?

    Answer (b). USAID has been a leader in supporting human rights and 
democratic governance as fundamental objectives of a whole-of-
government strategy toward Africa. The Agency's mission-level 
strategies are informed by several strategic and policy documents, 
including the National Security Strategy, the Quadrennial Development 
and Diplomacy Review (QDDR), the Presidential Policy Directive (PPD) on 
Africa, and the State/USAID Joint Regional Strategy for Africa. Under 
the current administration, USAID has also issued a new strategy on 
democracy, human rights, and governance. The new strategy codifies a 
more holistic approach to USAID's programming in this sector globally 
by focusing on participation, inclusion, and accountability, while 
elevating human rights and integration of democratic governance 
approaches across economic and social sectors.
    One of USAID's unique strengths is its field-based orientation, in 
which our missions abroad are the incubators and operational nerve 
centers of its work. With policy guidance and technical support from 
Washington, USAID bilateral missions in Africa develop their own 
multiyear country development cooperation strategies (CDCS) in order to 
tailor development programming to the needs and challenges of 
particular countries, to reflect the development agenda of the host 
nation itself, and to align U.S. efforts with host nation, 
international, and other bilateral donor programs working in the 
country. They do so in close collaboration with U.S. Embassy 
counterparts, host-country partners, and often with other donors, 
foundations, and the private sector. Virtually every USAID mission in 
Africa has a medium- to long-term strategic objective focused on 
supporting democracy, human rights, and governance. These causal 
theories of change are developed using the principles and approaches 
laid out in the Agency's DRG Strategy. If confirmed, I remain committed 
to supporting the implementation of the USAID mission-level strategic 
objectives.

    Question. How is USAID supporting justice and accountability in 
African countries transitioning from conflict, such as South Sudan and 
the Central African Republic?

    Answer. To promote access to justice and accountability in 
transitional environments, USAID works to strengthen formal and 
informal justice mechanisms, coordinates closely on humanitarian and 
development programming to boost community resilience, and stresses 
approaches that prioritize women and youth and conflict mitigation 
programs.
    In South Sudan, USAID is addressing cycles of revenge violence 
driven by cattle theft and land disputes by supporting local dispute 
resolution initiatives in the absence of formal justice mechanisms. In 
one area, for example, USAID brought together traditional chiefs and 
community leaders to resolve disputes by deciding on compensation as a 
form of restorative justice.
    In the absence of strong formal institutions that reach the 
communities most affected by the ongoing violence in the Central 
African Republic (CAR), USAID focuses on laying the groundwork for the 
establishment of community-based mechanisms to address grievances. 
Moreover, USAID's current activities in CAR focus on addressing the 
immediate humanitarian and emergency needs of communities affected by 
ongoing insecurity, banditry, and sporadic intercommunal violence. In 
addition, USAID efforts aim to address social cohesion through 
intercommunal dialogue and reconciliation activities in affected areas 
of the country.
    USAID also provides support to both formal and informal justice 
institutions in conflict-affected countries such as Cote d'Ivoire and 
Mali, including training judicial actors, expanding paralegal networks, 
improving court case management systems, and providing and upgrading 
infrastructure and equipment. In addition, USAID strengthens the 
ability of national legislatures to fulfill their representational, 
legislative, and oversight mandates, and trains civil society 
organizations (with a focus on women and youth) in management, 
advocacy, and civic education so they can contribute to and monitor the 
work of elected leaders and commune council members. For example, in 
Cote d'Ivoire, USAID programming has supported the National Assembly by 
strengthening its capacity to fulfill basic functions and improving 
deputy representation and oversight in selected communes. Such programs 
assist governments to build more accountable institutions over the 
long-term and can aid political reconciliation efforts in post-conflict 
environments.

    Question. After over 20 months of fighting, the parties to the 
conflict in South Sudan finally signed a peace agreement in August. The 
peace agreement is still in the pretransitional phase, but the 
signatories have already asked for U.S. aid to help with 
implementation. By many accounts, diversion of state resources has 
occurred on a massive scale within the South Sudan Government in the 
past decade, and reports suggest the war has left little for 
stabilization and reconstruction.

  <diamond> (a) If confirmed, how will you work with other donors to 
        ensure that mechanisms to promote transparency and 
        accountability for government and donor resources are put in 
        place by the South Sudanese?

    Answer (a). The United States, along with other major donors, 
implements projects directly to help the people of South Sudan, and 
does not provide funds to or through the Government of South Sudan. 
USAID plays a key leadership role in several donor groups, and, if 
confirmed, I will continue such coordination to ensure assistance 
programs are complementary with those of other donors. If confirmed, I 
will also continue to work closely with key bilateral donors and 
international financial institutions, such as the World Bank and the 
International Monetary Fund (IMF), to promote the proper management and 
safeguarding of South Sudanese resources for the benefit of the people 
and for future generations.
    There are several aspects of the peace agreement, including 
oversight mechanisms, that will give the United States an opportunity 
to press--both diplomatically and by supporting civil society efforts--
for greater transparency in government spending. If confirmed, I will 
join my colleagues in the Department of State and donor community in 
supporting critical structures of the peace agreement that increase 
transparency and accountability with respect to government and donor 
resources.

  <diamond> (b) What is USAID's role in supporting accountability and 
        reconciliation mechanisms put in place through the peace 
        agreement, especially at the grassroots and what resources will 
        we be committing to support such mechanisms?

    Answer (b). South Sudan has not had a strong history of holding 
perpetrators of abuses accountable, which has perpetuated a cycle of 
impunity and violence. The violent nature of this most recent conflict 
in South Sudan has had a devastating impact on civilians and further 
polarized intercommunal relations. I believe USAID can play a critical 
role in supporting accountability and reconciliation efforts at both 
the local and national levels.
    Since the crisis began in December 2013, USAID has been working to 
create space for reconciliation at the local level. USAID support at 
the grassroots level has been primarily focused on: (1) engaging 
community leaders and supporting dialogues between communities 
suffering from or on the brink of violent conflict, and (2) supporting 
structured community dialogues to begin the healing process and 
mitigate violence due to the impact of exposure to repeated traumatic 
events.
    USAID also has been providing support to emerging community-based 
conflict management mechanisms and to other conflict mitigation 
initiatives in the United Nations Protection of Civilian (POC) sites, 
where conflict within the sites has the potential to spark wider 
conflict outside, and vice versa. For example in the Bentiu POC site, 
our support has helped establish a community-based conflict management 
mechanism that provides a critical service in helping resolve and 
mitigate destabilizing tensions within the site. And, while our 
``trauma-informed community empowerment'' program is still in its pilot 
phase, we are testing this idea as a potentially groundbreaking new way 
of supporting communities to overcome the immense challenges of 
reconciling and rebuilding in the wake of devastating conflict.
    Chapter V of the peace agreement is devoted to the issues of 
transitional justice, accountability and reconciliation. The State 
Department has taken the lead on supporting efforts to establish and 
support accountability mechanisms, such as documentation of human 
rights abuses that occurred during the conflict and support for the 
establishment of a credible, impartial, and effective hybrid court 
whereas USAID has taken the lead on national level reconciliation 
efforts called for in the agreement. Failure to address the root causes 
of the conflict and address rightful grievances can often undermine 
peace-building efforts. For that reason, USAID plans to commit over $10 
million in FY 2015 for these programs.

                               __________
          assistant administrator-designate etim's responses 
                    to questions from senator flake
    Question. One of the things that the Ebola outbreak taught us is 
the importance of having healthcare systems to address all diseases. 
Can you provide me with your perspective on whether we can leverage the 
existing communicable disease platforms to integrate cost effective 
solutions that address the growing burden of chronic diseases, and, if 
so, how?

    Answer. At their very heart, communicable disease platforms build 
health system capacity to diagnosis, treat and manage patients and 
prevent spread of disease. The foundational capacities required for 
effective communicable disease prevention, detection, monitoring and 
treatment are very similar to those needed for chronic and 
noncommunicable diseases; these requirements can leverage the skills 
and systems needed for both sets of health care issues. For example, 
both communicable disease and chronic disease programs must effectively 
perform the following health systems functions:

  <diamond> Risk communication: Health systems must provide clear 
        information for people at risk to reduce their chances of 
        acquiring the condition;
  <diamond> Patient management: Health systems must have a means of 
        tracking affected patients and responding to changes in their 
        conditions in order to mitigate subsequent impacts;
  <diamond> Management of drugs and medications: Health systems must 
        have strong logistics systems and drug quality systems to 
        ensure that adequately supplies of needed medications are 
        available to patients on an ongoing basis and that diminish the 
        instance of counterfeit drugs into the system;
  <diamond> Comprehensive laboratory capacity: Health systems must be 
        able to identify these conditions through laboratory services.

    All of these activities are components of USAID supported 
infectious disease and health system strengthening programs which can 
be leveraged to translate these basic and cross-cutting skills to 
chronic and non-communicable disease programs at low cost.

                               __________
          assistant administrator-designate etim's responses 
                    to questions from senator perdue
    Question. What are your top priorities for your post, if confirmed? 
What challenges do you foresee in meeting these goals? How could 
Congress, and this committee, be useful to you in meeting them?

    Answer. If confirmed, in addition to focusing on the management 
issues critical to the successful functioning of USAID's Africa Bureau, 
I will concentrate on three objectives are critical to the 
sustainability, growth, and success of our development goals.
    First, I believe we need to continue to invest in Africa's greatest 
resource--its people--to further development, democracy, opportunity, 
rights and governance for this and future generations. Africa is the 
youngest continent on the world and one of the fastest growing. For 
this reason, any successful development approach will need to factor in 
this demographic shift by investing in human capital through quality 
education, skills primary and leadership training, and job creation. If 
confirmed, this will be one of my main areas of focus.
    Second, I will continue USAID's focus on accelerating sustainable 
development through African-led partnerships. For example, through 
Power Africa, the United States is working with a range of partners to 
accelerate private-sector energy transactions, by leveraging the 
assistance, financing, commercial and diplomatic tools of the U.S. 
Government, as well as the tools and expertise of our bilateral and 
multilateral partners and the private sector with the aim of expanding 
access to electricity by 60 million new connections. Two years after 
Power Africa's launch, the U.S. Government's commitment of $7 billion 
dollars has mobilized more than $43 billion in private capital from 
Power Africa's more than 100 bilateral, multilateral and private sector 
partners, including more than $31 billion in private sector 
commitments.
    Third, I will ensure that our work is implemented effectively, that 
we evaluate the results, and that we apply those lessons learned going 
forward. USAID recognizes the need to focus our resources to maximize 
the impact of our assistance. I understand that we have to measure our 
results and look to replicate and scale successes, discard failures, 
and learn from both to design future programs.
    Addressing these priorities will not be an easy task. Many African 
countries continue to face security, governance, and infrastructure 
challenges that can limit the pace of project implementation and 
complicate our ability to evaluate our programs. Nonetheless, if 
confirmed, I look forward to working together with the committee to 
prioritize people focused African-led programming, inform budget 
decisions based on sound program evaluations, and leverage our foreign 
assistance resources to catalyze greater investment in Africa.

    Question. Given your experience at USAID Africa, what areas have 
you found where there is duplication or waste? How can we help you 
streamline the agency to become more effective and efficient?

    Answer. As USAID's Deputy Assistant Administrator for Africa, I 
take the issue of accountability seriously and am singularly focused on 
delivering results on behalf of the American people and those we serve. 
To that end, and in partnership with Agency colleagues, I am committed 
to identifying ways to more efficiently and effectively program our 
foreign assistance resources and guard against duplication and waste.
    An important means of doing so is by maintaining and expanding the 
Agency's commitment to high quality evaluations, which are then used to 
inform program design modifications. USAID is grateful for the strong 
bipartisan support Congress has provided on behalf of the Agency's more 
rigorous approach to evaluations, which was unveiled by our former 
Administrator as part of the USAID Forward reform agenda. Between 2011 
and 2014, USAID trained over 1,400 USAID staff in sound evaluation 
methods and practices, created templates and tools to support 
evaluation design and performance management plans, and worked with 
missions to implement an approach that allows for collaboration with 
partners and adaptation of projects based on learning. During that 
time, over 950 evaluations have contributed to evidence-based decision 
making by missions and operating units.
    One such example in the Africa Bureau were the changes that our 
mission implemented in Kenya in response to an evaluation aimed at 
understanding the discrepancies between the number of HIV rapid test 
kits (RTK) distributed and the number of tests conducted. The 
evaluation indicated that the main discrepancies in the RTK supply 
chain were at the facility level. Based on the report's 
recommendations, USAID/Kenya changed the supplier to one that uses 
electronic systems; expanded monitoring activities to include two teams 
to visit the facilities along with the Ministry of Health, which has 
since improved data flow; and instructed USAID partners to tighten 
accounting controls at the facility level.
    USAID also works closely with other development agencies and with 
departments across the U.S. Government to share best practices, avoid 
duplication, and amplify the impact of taxpayer dollars.
    During my time at the National Security Council, I saw firsthand 
the benefit of enhanced inter-agency coordination and communication as 
a means to minimize duplication. In my current capacity, I have worked 
to actively promote interagency coordination by cultivating strong 
relationships with counterparts at the Departments of State and 
Defense, the Millennium Challenge Corporation and at the White House, 
with whom I regularly discuss learnings from across the region and 
opportunities to leverage our respective capabilities on behalf of the 
U.S. Government.
    If confirmed, I will continue to make this a priority and look 
forward to working with the Congress to ensure that evaluations are 
continually used to inform budget decisions, project design changes, 
and mid-course corrections in USAID development programming.

    Question. Please describe the working relationships between 
missions and AFR's Washington DC offices and bureaus and any notable 
challenges in these relationships. What are the similarities and 
differences between AFR's Development Planning and Sustainable 
Development (SD) offices? Why are both necessary, given some apparent 
duplication between them, and between functions carried out by SD and 
functional bureaus? Why are both necessary, given some apparent 
duplication between them? How do you plan to prevent duplication of 
efforts moving forward?

    Answer. The Office of Development Planning (AFR/DP) and the Office 
of Sustainable Development (AFR/SD) have distinct roles within the 
Bureau for Africa.
    The Office of Development Planning (AFR/DP) provides leadership for 
Bureau strategy and policy development and oversees the management of 
the Bureau for Africa's programmatic and operating expense (OE) budget. 
AFR/DP manages the allocation and tracking of budget resources, 
coordinates assistance with other donors, and provides guidance on 
overall program and budgeting strategy and policies. This office serves 
as the Bureau's audit and investigation liaison; managing the internal 
control assessment process and the audit management and resolution 
program; coordinating the preparation of the Congressional Budget 
Justification; monitoring and tracking compliance with congressional 
requests; ; overseeing the process of development and approval of 
Country Development and Coordination Strategies (CDCS) for field 
missions; assisting field Missions with program monitoring, evaluation 
and assessment; and acting as the Bureau focal point for outreach 
activities. AFR/DP does not directly manage any programs or projects.
    The Office of Sustainable Development (AFR/SD) oversees and manages 
the USAID/Africa Regional Program, and provides leadership on African 
development issues through support for analysis, strategy development, 
program design, technical assistance, advocacy, and information 
dissemination. AFR/SD provides support in areas of capacity building, 
institutional strengthening, partnership development, information 
technology, social sciences, democracy and governance, natural 
resources management and environment, agriculture, population, HIV/
AIDS, health, nutrition, education, and crisis mitigation and recovery. 
Additionally, AFR/SD provides technical assistance to field missions to 
inform strategic choices and program design; supports, encourages, and 
strengthens the performance of African regional institutions and other 
international organizations; leads the Bureau's strategic thinking in 
technical areas; and reviews performance by operating units and 
programs within the Bureau.
    Activities under the USAID/AFR Regional Program focus on extending 
health care services, including protecting maternal and child health, 
expanding immunization, and directly confronting the HIV/AIDS crisis; 
promoting new agricultural methods and technologies; promoting economic 
growth through the expansion of markets; supporting education 
activities in Africa, with a special emphasis on the education of girls 
and women; and preventing and mitigating the effects of conflict by 
linking crisis management with long-term development programs and by 
helping African nations integrate democracy and good governance 
principles across development sectors to consolidate democracy and good 
governance in their societies.
    The Bureau for Africa closely coordinates and cooperates with 
USAID's functional bureaus to leverage our teams' comparative strengths 
and technical capabilities in furtherance of the Agency's development 
objectives. Broadly speaking, both regional and functional bureaus 
serve as a resource to our field missions as they design their programs 
and/or undertake evaluations to inform follow-on activities. Regional 
bureaus such as the Bureau for Africa are typically a mission's ``one 
stop shop'' to field requests for support and technical assistance. In 
supporting these requests, the Bureau will typically look first to its 
relatively lean team of technical experts--mostly housed in AFR/SD--who 
are well-versed in both the country and regional context as well as the 
specific sector of concern. These individuals will work with 
counterparts in the regional bureaus to ensure that assistance being 
provided is reflective of best practices across the world and 
incorporates lessons learned across USAID's vast global presence. Where 
deep technikcal expertise is needed, the pillar bureaus will also 
provide direct support to field Missions.
    Working together, these shared responsibilities result in better, 
more in-depth support to missions that leverages the expertise of both 
the technical and regional bureaus at USAID.

    Question (a). What improvements would you recommend to evaluation 
and reporting on USAID Africa projects?

    Answer (a). USAID has established systems to ensure that quality 
evaluations are undertaken and that results are used for program 
improvements and redesigns. If confirmed, I will work to elevate the 
quality and use of evaluation tools by missions and offices in the 
Africa Bureau. I will also encourage and support training in monitoring 
and evaluation for all officers to ensure that important lessons are 
identified and appropriate adjustments are made to strategies and 
projects to increase the impact of our foreign assistance programs. 
USAID's Office of Inspector General recently issued an audit of USAID's 
Evaluation Policy Implementation across the Agency, which recommended 
USAID implement additional training programs, including an online 
tutorial on the main differences between impact and performance 
evaluations, a recommendation I fully support.
    The Africa Bureau has been proactive in its support for evaluation. 
In May 2015, the Africa Bureau brought together its officers charged 
with the planning and implementation of the Agency's evaluation policy 
in Ghana to look at ways to strengthen how evaluations are planned, 
carried out and applied to USAID's work. Conference participants 
confirmed the importance of increasing to build evaluation and 
monitoring capacity within USAID and externally for its implementing 
partners in the Africa Region in order to effectively implement the 
Agency's evaluation policy, as strengthening monitoring and evaluation 
also requires strengthening capacity. In addition, program officers 
stressed the need to further integrate a collaborative learning 
environment, in such a way that adaptation is a cornerstone of business 
operations throughout the USAID Program Cycle. USAID anticipates that a 
follow-on summit will be held in Spring 2016 to further strengthen our 
ability to carry out evaluations, identify cross-cutting issues, and 
share their lessons broadly so that our officers can make appropriate 
and timely adjustments to our strategies and projects.
    If confirmed, I will focus on this critically important aspect of 
USAID programming in the Africa region and ensure that evaluations are 
used to guide project design changes and midcourse corrections in 
development programming, as well as inform budget allocation decisions 
as appropriate.

    Question (b). How can we improve transparency in how taxpayer 
dollars are spent on aid projects in Africa? What obstacles do you face 
in reporting and evaluation, and how can we start to remedy those 
issues?

    Answer (b). Aid transparency is essential for helping recipient 
governments manage their aid flows, empowering citizens to hold 
governments accountable for the use of assistance, and supporting 
evidence-based, data-driven approaches to foreign aid. The 
administration has placed great emphasis on transparency and openness 
across the government and USAID is taking a leading role in helping the 
U.S. Government further its commitment to enhancing aid transparency as 
a way of increasing the efficacy of development efforts and promoting 
international accountability. For example, in October 2014, USAID 
released its first ever Open Data policy and regularly posts datasets 
to www.usaid.gov/data.
    I believe that the transmission of foreign assistance data and 
evaluation outcomes to the public is a critical step toward increasing 
transparency in development. If confirmed as Africa's next Assistant 
Administrator, I will work with USAID leadershipto advance efforts that 
are currently underway to increase the transparency of our funding and 
programming, including regularly posting data to the International Aid 
Transparency Initiative (IATI) and ForeignAssistance.gov.

    Question (a). What factors led USAID to redeploy staff from the 
Nairobi East Africa mission to elsewhere, where were they moved, and 
how many staff and which key programs were affected?

    Answer (a). Due to the increasing security concerns in Kenya, in 
July 2014, the USAID's East Africa mission eliminated 27 U.S. citizen 
positions. Of those positions, 24 were NSDD-38 approved U.S. Direct 
Hires, and 3 were U.S. Personal Service Contractors (USPSC). Fourteen 
of the U.S. Direct Hire positions were realigned as follows:

  <diamond> Five were transferred to the USAID mission in Ethiopia,
  <diamond> Five were transferred to the USAID mission in South Africa, 
        and
  <diamond> Four were transferred to the USAID mission in DRC.

    The Agency continues to assess how best to realign the remaining 
ten U.S. Direct Hire positions across the Africa portfolio. Based on 
revised staffing levels and an analysis of capacity remaining in 
Nairobi, 39 ongoing programs remained in Nairobi, 12 were cancelled or 
closed, and 12 were transferred to other Missions.
    Key program impacts include:

  <diamond> Trade Africa: There were no significant changes to staff 
        and programs supporting the implementation of Trade Africa, 
        though disruptions to contracting, financial management and 
        legal support services resulted in programmatic delays.
  <diamond> Limited and Non-Presence Countries (Burundi, Djibouti, 
        Central African Republic and Somalia): The USAID East Africa 
        Mission-recently renamed USAID Kenya and East Africa mission 
        (USAID/KEA)-no longer oversees or provides support to the 
        Limited Presence Country offices in Burundi and Djibouti. 
        USAID's mission in Burundi has since been consolidated with 
        USAID's mission in Rwanda, and USAID's Djibouti office has been 
        consolidated with the Ethiopia Mission. The Somalia Office was 
        not affected and continues to be managed from USAID/KEA.
  <diamond> Conflict and Governance: USAID/KEA's $32 million conflict 
        mitigation and governance portfolio continues to focus on 
        mitigating cross-border conflict in the Horn of Africa. The 
        management and staffing for programs to counter the Lord's 
        Resistance Army, Central African Republic and the management of 
        mineral trade in the Great Lakes has been transferred to USAID/
        Democratic Republic of Congo Mission.
  <diamond> Health and HIV/AIDS: USAID/KEA has refocused its regional 
        health activities on infectious disease outbreaks and phased 
        out the majority of its support for regional health policy 
        strengthening, except for USAID's key assistance to the East, 
        Central, and Southern Africa Health Community. The management 
        of this program will move to South Africa. USAID has moved or 
        closed 11 health programs, while retaining a $21 million 
        program managed from Nairobi.
  <diamond> Agriculture and Resilience: USAID/KEA's $85 million 
        agriculture and resilience portfolio remains in Nairobi. The 
        Mission transferred four programs focused on advancing 
        agricultural development by scaling up successful innovations 
        to Washington.
  <diamond> Environment: USAID/KEA will maintain most of its $42 
        million environment portfolio (global climate change 
        adaptation, biodiversity, water, and sanitation). USAID/KEA 
        transferred responsibility for a regional engineering contract 
        and is unable to program water and sanitation funds proposed 
        for FY 2014.

    Question (b). What, if any, changes in AFR programming has the 
USAID Forward development reform initiative spurred?

    Answer (b). USAID Forward represents major development and 
organizational reforms to ensure that USAID and its partners 
efficiently, effectively, and inclusively address the global challenges 
of today and achieve results that outlast our assistance in the future. 
It is based on three separate, but mutually reinforcing principles:

  <diamond> Delivering results on a meaningful scale through a 
        strengthened USAID;
  <diamond> Promoting sustainable development through high-impact 
        partnerships; and
  <diamond> Identifying and scaling-up innovative breakthrough 
        solutions to intractable development problems.

    USAID Forward has enabled the Agency to increase its in-country 
presence with skilled professionals proficient in the discipline of 
development; adaptive, innovative approaches focused on both short- and 
long-term results that sustain; and partnerships that engender local 
ownership of results and greater prospects for sustainable impact. 
Through implementation of the USAID Forward reforms, the Agency has 
changed the way it conducts business. The Africa Bureau has embraced 
the USAID Forward reforms and tailored them to the regional and country 
context based upon the given sector's focus and available funding. 
Below are some examples of progress achieved in Africa.
    Currently 18 operating units in Africa have completed five year 
Country Development Cooperation Strategies (CDCSs), one operating unit 
has completed a 3-year strategy, and the Bureau has completed four 
Regional Development Cooperation Strategies, for a total of 23 out of 
24 required strategies for the Africa Bureau (the 24th strategy is in 
progress). These documents serve as guideposts for strategic 
decisionmaking in the allocation of our resources and implementation of 
results-oriented programming throughout the region.

  <diamond> In FY 2014, our Africa missions exceeded targets for 
        leveraging commercial private capital through the Development 
        Credit Authority (DCA) mechanism across all development sectors 
        by 10 percent. For example, the USAID/Nigeria Mission leveraged 
        private sector financing in under-served sectors, with 
        particular emphasis on renewable energy, agriculture, water, 
        and health. The mission's efforts resulted in increased 
        resources for Nigerians in support of U.S. Government food 
        security, private sector development, and clean energy 
        objectives; increased numbers of companies able to access 
        credit for profitable agriculture, water, health, and renewable 
        energy activities; and increased numbers of banks providing 
        access to credit using the DCA facility.
  <diamond> In an effort to ensure the sustainability of our 
        investments by building local capacity to carry this work 
        forward in the future, the Africa Bureau has also made progress 
        in increasing the share of assistance dollars going directly 
        through local partners, taking pains to ensure that such 
        partnerships are rigorously monitored and evaluated to 
        safeguard taxpayer dollars.
  <diamond> In FY 2014, the Africa region obligated $538 million in so-
        called ``Local Solutions'' funding, an increase from $389 
        million in FY 2013 and $355 million in FY 2012. This figure 
        represented 14.4 percent of all obligations, up from 11.7 
        percent in FY 2013 and 9.6 percent in FY 2012.
  <diamond> In FY 2014, Africa missions completed 69 evaluations in 
        accordance with USAID's Evaluation Policy, which demands a high 
        level of rigor for all evaluations. In FY 2013, Africa missions 
        conducted 71 evaluations. This represents a significant 
        increase from FY 2012 when 41 evaluations were conducted. 
        Despite ongoing challenges related to the Ebola outbreak, 
        USAID/Guinea's health sector implementing partners were able to 
        complete four evaluations on activities pertaining to health 
        management information systems, gender-based violence, and 
        post-partum health.

    Question (c). Please describe the emergent Sustainable Development 
Goals and USAID's approaches to achieving them.

    Answer (c). Last week, over 150 world leaders gathered at the U.N. 
General Assembly and took action to adopt the 2030 Agenda for 
Sustainable Development. This Agenda builds on the progress achieved by 
Millennium Development Goals (MDGs), and endorses a new set of 
Sustainable Development Goals (SDGs) for the next 15 years. The MDGs 
contributed to tangible, concrete progress in development. Rates of 
those in extreme poverty and maternal mortality figures were cut nearly 
in half globally and we made progress in global education, with a 20-
percent increase in primary school enrollment in sub-Saharan Africa and 
a nearly 50 percent decrease in the number of out-of-school children of 
primary school age, among other advances.
    The SDGs take the focus of the MDGs on social and economic aspects 
of human development and add emphasis on the environment and good 
governance. The SDGs importantly also include known drivers for 
development like sustainable energy, inclusive economic growth, gender 
equality in addition to the foundational role for peace, security, and 
effective institutions.
    From the U.S. perspective, the SDGs bring focus, attention and 
resources to more inclusive development globally. This is no longer an 
agenda just meant for donors to implement in developing countries. This 
is an agenda that every country, regardless of level of development, 
has voluntarily adopted. It incorporates the Addis Ababa Action Agenda 
which promotes financing for development, not from official development 
assistance only, but also through domestic resource mobilization and 
private sector investment.
    Implementation followup and review including tracking progress and 
the discussion about which indicators will be monitored is ongoing and 
expected to be completed in March of next year. Primary responsibility 
for implementation and followup is at the national level. Countries are 
expected to integrate the SDGs into national development plans and 
strategies, supported by integrated national financing frameworks. As a 
guide for how USAID will approach this ambitious agenda and build 
momentum for implementation we recently released a ``Vision for Ending 
Extreme Poverty.'' The Vision articulates how USAID defines extreme 
poverty and frames the Agency's role in this worldwide effort.
    We see this global development agenda as a powerful instrument to 
eradicate extreme poverty within a generation; focus on transformative 
priorities that can have wide- reaching and long-lasting impact, 
particularly for the most vulnerable; and help put all of our societies 
on a more sustainable path.

    Question (a). Please describe USAID's strategic approach toward 
development in Africa.

    Answer (a). In 2012, USAID's Africa Bureau and the State 
Department's Africa Bureau developed a Joint Regional Strategy (JRS) 
for sub-Saharan Africa, as an outgrowth of the Quadrennial Diplomacy 
and Development Review (QDDR) process. The JRS for Africa covers fiscal 
years 2015 to 2017 and guides USAID's strategic approach in Africa. 
Every three years, the JRS process provides Regional Bureaus at State 
and USAID a method for longer-term planning that is collaborative and 
conceptually rigorous. The process incorporates input from relevant 
functional/technical Bureaus and Mission stakeholders, serves as a tool 
to better coordinate activities in the region around shared goals and 
objectives, and informs annual resource requests and mission-level 
planning in USAID Country Development Cooperation Strategies (CDCS) and 
State-USAID Integrated Country Strategies (ICS). The goals of the JRS 
for sub-Saharan Africa include strengthening the United States economic 
reach and positive economic impact; strengthening the United States' 
foreign policy impact on our strategic challenges; promoting transition 
to a low emission, climate-resilient world, while expanding global 
access to sustainable energy; protecting core U.S. interests by 
advancing democracy and human rights and strengthening civil society; 
and modernizing the way we do diplomacy and development.
    The JRS reflects the goals, objectives, and strategies articulated 
in the Presidential Policy Directive for Sub-Saharan Africa (PPD-16). 
PPD-16 is centered on four overarching and complementary policy goals: 
Strengthen Democratic Institutions, Improve Governance, and Protect 
Human Rights; Spur Economic Growth, Trade, and Investment; Advance 
Peace and Security; and Promote Opportunity and Development in Sub-
Saharan Africa. The JRS is also consistent with the Presidential Policy 
Directive on Global Development (PPD-6) and reaffirms U.S. interest in 
and commitment to the administration's global development priorities, 
including key initiatives such as Feed the Future, the G-8 New Alliance 
for Food Security and Nutrition, the Global Health Initiative, the 
Partnership for Growth, and the President's Global Climate Change 
Initiative.

    Question (b). Why are there strategies for some regions and 
countries but not others?

    Answer (b). All bilateral USAID Missions and regional platforms are 
expected to develop a CDCS or Regional Development Cooperation Strategy 
respectively, with the exception of those that are: (1) implementing a 
single sector program, such as health; (2) phasing down or closing the 
mission; and (3) special purpose offices such as those in nonpresence 
countries lacking a USAID mission. Agency guidance outlines the 
conditions under which an operating unit might be exempted from 
preparing a CDCS.
    Currently 18 operating units in Africa have completed 5-year 
Country Development Cooperation Strategies (CDCSs); one operating unit 
has completed a 3-year strategy, and the Bureau has completed four 
Regional Development Cooperation Strategies, for a total of 23 out of 
24 required strategies for the Africa Bureau (the 24th strategy is in 
progress). These documents serve as guideposts for strategic 
decisionmaking in the allocation of our resources and implementation of 
results-oriented programming throughout the region.

    Question (c). How are these strategies formulated?

    Answer (c). The CDCS formulation process relies on technical 
analysis, program evaluations, and extensive consultations to establish 
an evidence base by which the mission defines development objectives 
that will maximize the impact of development cooperation. The gathered 
evidence is used to establish a development hypothesis and define a 
results framework that outlines the strategy's overarching goal, its 
development objectives, and the results necessary to achieve those 
objectives. The CDCS helps ensure that USAID implements programs and 
activities in coordination with other donors and U.S. Government 
agencies and with host-country governments and local stakeholders as 
partners to end extreme poverty and promote resilient, democratic 
societies while advancing our security and prosperity. The mission 
follows the steps outlined in Agency guidance to develop a CDCS in 
collaboration with strategic planning specialists in the Bureau for 
Africa and the Bureau for Policy, Planning and Learning, along with 
technical counterparts across the Agency. The process includes several 
opportunities for technical review and advice throughout the year-long 
planning process.
    The commitment to strategic planning and multi-year CDCS remains a 
core component of the USAID Forward reform agenda launched in 2010. 
USAID's agencywide CDCS guidance is now being updated based on lessons 
learned from the first 5 years of CDCS design and implementation. Feed 
the Future, Global Health Initiative, Global Climate Change, and other 
sector-specific strategies are incorporated under the umbrella of the 
CDCS.

    Question (d). What new programmatic trends are you pursuing?

    Answer (d). Some of the new programmatic trends being pursued by 
USAID Missions in Africa reflect the changes in Agency operations 
associated with USAID Forward, the value of incorporating science and 
technical innovation, and the evolving landscape of development aside 
from foreign assistance. Missions are developing new alliances with the 
private sector, nongovernmental organizations, and academia that 
contribute to partnerships that deliver development results in novel 
ways and spur new development solutions. Many programs increasingly aim 
to build local capacity of governmental and nongovernmental partners in 
ways that will ensure greater ownership and more sustainable results 
that will endure over time.

    Question (e). Please discuss the thrust and impact of the global 
Development Lab and other USAID development innovation efforts in 
Africa.

    Answer (e). The U.S. Global Development Lab, created in 2014, has 
been established to leverage science, technology, innovation, and 
partnerships to address international development challenges, such as 
ending poverty in a better, faster, cheaper, and more sustainable way. 
This is done by casting a wide net to find ideas for innovations, 
tools, and approaches that disrupt traditional development solutions; 
use hard evidence and quick iteration to develop those that are most 
promising; and work across the Agency and with implementing partners to 
mainstream proven solutions. The Lab is heavily involved in Africa and 
works closely with the Africa Bureau.
    For example, the Lab has been working closely with the Africa 
Bureau on Ebola recovery through Information Communications Technology 
(ICT). This work directly supports the U.S. Government objectives to 
mitigate the second order impacts of Ebola and enable the Ebola 
affected countries to prevent, detect and respond to future outbreaks. 
The Lab is using ICT to strengthen health information systems to enable 
two- way communication between front line health care workers and 
Ministries of Health for to shorten the time to collect information 
enabling faster response. USAID is also working to expand ePayments for 
health care workers and Ebola recovery programs to help overcome the 
significant logistical challenge of transporting cash payments to 
health care workers.
    Although the Lab's work focused on Ebola recovery is in early 
stages, support from technology, data and information management 
specialists from the Lab during the height of the outbreak helped 
improve the flow and quality of information for decision making. For 
example, USAID worked with partners in Guinea to expand the use of 
mobile technology, specifically the mobile phone app CommCare, a 
Fighting Ebola Grand Challenge winner, to support contact tracing-the 
daily monitoring of individuals who had come in contact with an Ebola 
patient and were at risk of developing the virus. In districts using 
this tool, district health managers reported that the tool helped 
improve accuracy and accountability of contact tracer activities, 
through the tool's decision- support dashboard which enables district 
health managers to quickly identify areas where support is needed, as 
well as the geo-tagging feature which verifies location for each 
contact visit.
    The Lab is also seeing impact from other innovation efforts in 
Africa. For example, the Lab's Development Innovation Ventures (DIV) is 
supporting Off-Grid: Electric--an innovative organization that is 
working to bring affordable electricity to one million Tanzanian homes. 
After receiving initial funding of $100,000 from DIV in 2013 and an 
additional $1 mMillion of follow on funding in late 2014, Off-Grid: 
Electric successfully aised $16 million in equity financing and an 
additional $7 million from the International Finance Corporation and 
its partners earlier this year.
    Additionally, the Lab is a cocreator of the Alliance for Affordable 
Internet (A4AI), which has grown to more than 65 members in just over 1 
year, including Nigeria, Ghana, Mozambique and Liberia. In each 
country, stakeholders have rallied around regulatory reforms that seek 
to drive down the cost of broadband to levels within 5 percent of 
household monthly income. In late 2014, through A4AI's direct work, 
Ghana agreed to abolish the 20-percent import duties that comprise 35 
percent of the cost of smartphones in-country.

    Question. Please discuss how GHI is strategically structured and 
implemented in Africa. How, if at all, is complementarity and synergy 
between individual disease initiatives and USAID's many other health 
goals pursued? To what extent does general health system capacity-
building remain a core goal under GHI?

    Answer. The United States plans to invest nearly $5 billion in FY 
2016 through Global Health Programs accounts across health programming 
in Africa, with the aim of reducing preventable mortality. Improvements 
in mortality can be achieved by increasingly effective efforts to link 
diverse health programs, including maternal and child health (MCH), 
malaria, family planning's contribution to the healthy timing and 
spacing of pregnancy, nutrition, HIV/AIDS, and sanitation and hygiene 
improvement programs. To support the strategic priority of ending 
preventable child and maternal deaths, USAID has closed operations in 
26 countries to concentrate its effort in 24 high-priority countries, 
of which 16 are in sub-Saharan Africa. Nearly 75 percent of all 
maternal deaths occur in those 24 high-priority countries.
    USAID's strategic focus on ending preventable mortality brings 
together the efforts of the U.S. Government MCH and Family Planning and 
Reproductive Health (FP/RH) programs, the President's Malaria 
Initiative, Feed the Future, and the President's Emergency Plan for 
AIDS Relief. In addition, a focus on health systems strengthening has 
helped to bring these diverse initiatives together around the common 
need for a strong health system in order to achieve sustainable results 
across all health sectors.
    USAID's investments in health are saving lives and improving health 
around the world and have contributed to impressive outcomes. For 
example, fewer children are dying from preventable causes, more people 
are accessing care and treatment for HIV and AIDS, and entire 
communities are facing a future free from debilitating diseases, such 
as blinding trachoma. For these trends to be sustained and accelerated, 
countries need stronger, more robust health systems that are able to 
address current and future challenges. As such, USAID continues to 
prioritize the Global Health Initiative principle of health systems 
strengthening as paramount in its global health work in Africa. Health 
systems strengthening activities supported in Africa include service 
delivery; human resources; information; medical supplies, vaccines and 
technology; electronic and mobile health; and governance.
    Given the centrality of strong health systems to achieving USAID-
supported health goals, USAID also recently released the Vision for 
Health Systems Strengthening (HSS) 2015-2019. The Vision for HSS is a 
key document that will help guide USAID's work and investment focus to 
evidence-based HSS approaches that contribute to positive health 
outcomes and help create an environment for universal health coverage. 
It will also help the Agency meet its goals of ending preventable child 
and maternal deaths, creating an AIDS-free generation, and protecting 
communities from infectious diseases, including achieving the goals of 
the Global Health Security Agenda. USAID's vision for HSS is to partner 
with countries to provide sustained, equitable access to essential, 
high-quality health services that are responsive to people's needs 
without financial hardship, thereby protecting poor and underserved 
people from illness, death, and extreme poverty.

    Question. Africa is set to receive about $4.9b, more than half of 
all U.S. foreign aid for global health in FY 2016. This funding request 
is an increase from last year's actual spending, which totaled 51 
percent of all global health aid last year. Given the increased goal-
orientation for more country ownership and in-country staffing, please 
explain your plan for ensuring that this aid funding gets distributed 
accurately and effectively? Does this plan include training and 
oversight to minimize the possibility of corruption?

    Answer. Sub-Saharan Africa accounts for more than half of maternal 
deaths, has the highest rates of mortality for children under five, and 
bears approximately 70 percent of the HIV/AIDS global burden. Africa 
comprises a disproportionate share of FY2016 resources targeted at 
improving global health outcomes principally because of the enhanced 
need for this assistance and the Agency's assessment of opportunities 
to achieve sustainable results in this sector, all the while 
safeguarding taxpayer money against waste, fraud, and abuse. 
Accordingly, USAID has taken steps to ensure that missions are well-
staffed with trained personnel who are equipped to rigorously design, 
execute, and monitor programs such that U.S. foreign assistance funds 
are expended appropriately.
    USAID takes great pains to ensure that taxpayer funds are used for 
their intended purposes, and the Agency has a number of mechanisms in 
place to monitor the use of funds, including pre-award assessments, 
regularly required reporting, audits and evaluations. USAID health 
assistance is planned and executed in compliance with the Agency's 
Automated Directive System (ADS), which outlines the policies and 
procedures that guide the Agency's programs and operations. The ADS 
includes ``Guidance on the Definition and Use of the Global Health 
Programs Account A Mandatory Reference for ADS Chapter 200'' which 
describes the use of funds for the Global Health Programs (GHP) 
account. The guidance outlines several ways in which GHP funds can be 
used to support health governance and finance activities that include a 
focus on corruption reduction within the health sector as a goal.
    The Agency also uses numerous financial systems and controls, as 
well as internal and independent audits to enable the Agency to 
effectively manage, track, and safeguard funds. For example, during the 
performance of a contract, USAID personnel are responsible for 
approving vouchers for invoices submitted by the awardee and conducting 
site visits to monitor program activities. USAID also regularly 
conducts evaluations of its programs, including external evaluations, 
to ensure they are on track to achieve the stated goals, and posts 
these evaluations online. If a program is not performing as it should, 
the Agency works to modify it--or, as appropriate, to terminate it, 
directing resources toward higher impact programming.
    USAID staff, including those working on global health programs, 
receive specific training in ensuring USAID funds are properly 
programmed and monitored and Mission Orders are in place to require 
compliance with the ADS. As noted above, USAID has been able to 
increase critical staffing in areas of priority, including health 
offices in USAID's missions in Africa, to ensure sufficient oversight 
of U.S. foreign assistance programs. Given the significant global 
health resources invested in Africa, USAID leadership routinely 
monitors staffing vacancies in Africa's health missions to confirm that 
programs have the continuous support they need at the country level.
    If confirmed, I will continue to remain vigilant in ensuring that 
the Agency deploys all relevant mechanisms to prevent corruption and 
guard against waste, fraud, and abuse, including with respect to 
Africa's global health portfolio. I will also work to ensure that our 
missions remain well-staffed and support continued training for USAID 
employees on USAID best practices as outlined in the ADS in order to 
equip USAID personnel with the skills and knowledge necessary to 
effectively protect taxpayer money and efficiently implement foreign 
assistance programs.

    Question.  Please assess FTF's 6 years of implementation in Africa, 
including with respect to possible unanticipated outcomes or 
challenges. How, if at all, have FTF goals and focus areas changed over 
time to reflect changing needs and lessons learned?

    Answer. Feed the Future relies on rigorous monitoring and 
evaluation of investments to track progress and facilitate results-
driven planning and performance-based management-all of which feed into 
the Feed the Future Results Framework. The Feed the Future Results 
Framework is the conceptual and analytic structure that establishes the 
goals and objectives of Feed the Future, with the top line goals of 
reduction in poverty (through agriculture sector growth) and improved 
nutritional status (measured as reduction in stunting). The Framework 
also includes the Initiative's whole-of- government common indicators 
for tracking progress.
    As part of the Feed the Future Results Framework, USAID developed 
the Feed the Future Learning Agenda, which is a set of strategic 
questions for which the Initiative intends to produce evidence, 
findings, and answers-primarily through impact evaluations, but also 
through other methods, such as performance evaluations and policy 
analysis. Using the information and data gathered through the Feed the 
Future Learning Agenda and informed by the Feed the Future Results 
Framework, USAID is able to adjust and improve interventions in 
agriculture and nutrition, Feed the Future's two top line goals.
    According to available data, before 2010, Feed the Future focus 
countries saw an annual average rate of reduction in stunting of about 
2 percent per year. Since Feed the Future has been active, some of 
these countries have seen an annual average stunting reduction of more 
than 4 percent per year. In 2015, Feed the Future will complete repeat 
population based surveys to determine additional progress against 
poverty and stunting baselines. As part of this analysis, Feed the 
Future asks the following questions:

   What are Feed the Future investments improving?
   Are Feed the Future activities, projects, and programs 
        accomplishing what we intended?
   Are Feed the Future efforts impacting our overall goal to reduce 
        poverty and hunger?
   Are barriers hindering the progress or performance of Feed the 
        Future programs?
   What changes would support broader or deeper Feed the Future 
        program impacts?

    Over time, Feed the Future has made program adjustments to address 
challenges in implementation. For example in Mali, while significant 
political and security gains were made in 2013 through early 2014, it 
has not fully recovered from the compound effects of the 2012 coup and 
subsequent events. This political insecurity was compounded by a 2012 
food security crisis that affected millions of Malians. Although 
implementation of Feed the Future programming, including the collection 
of baseline information, was delayed, Feed the Future Mali was able to 
adapt and quickly begin making strategic program investments that will 
garner the most impact and strides towards achieving objectives that 
include launching and completing a full-year of the Cereal Value Chain; 
beginning a new Livestock for Growth program; scaling programs for 
improved cereal varieties, horticulture, fertilizer technologies, and 
agroforestry--resilience; and developing two joint activities between 
health programs and FTF, ensuring full coverage of the FTF zone of 
influence with nutrition programs.
    In Malawi, due to localized drought conditions in 2014 and flooding 
in early 2015, as well as poor seed germination and poor quality seeds, 
yields have been lower than targeted. Given the multidimensional cause 
of these lower yields, USAID has actively worked to incorporate our 
best thinking across multiple offices, including the Bureau for Food 
Security, the Office of Food for Peace, and Office of Disaster 
Assistance, to design a comprehensive response. Feed the Future is 
supporting smallholder farmers with climate resilient crop varieties, 
aiming to assist farmers maintain yields in difficult conditions. 
Activities also help smallholders access improved training on improved 
agronomic practices, including increasing plant density, integrated 
pest management, and improved drying and storage techniques.
    Additionally, after a cost-benefit analysis in Malawi showed the 
limited benefit of the program, dairy was dropped as a value chain for 
Feed the Future investments. Instead, Feed the Future activities focus 
on groundnuts, soy, and orange-fleshed sweet potato, crops that are 
grown by smallholder farmers and benefit a large number of people. 
Similarly, a 2014 survey on agricultural technology adoption in Zambia 
by the International Food Policy Research Institute found some farmers 
discontinue the use of new technologies at a high rate, even within 1 
year of adoption. Sustainable adoption of new technologies is far more 
likely to occur as a result of repeated, intensified exposure via 
demonstrations or training. Noting that technology retention occurs 
through repeated exposure, Feed the Future in Zambia decided against 
expanding the zone of influence to increase the number of target 
farmers. Instead, activities are targeting the same total number of 
farmers and concentrating resources to intensify farmer exposure and 
ensure high technology retention rates.

    Question.  Please describe some key examples of GCCI clean energy 
and low-emission, sustainable landscape management, and adaptation 
goals and programs. How are outcomes in this area measured? What are 
the main climate and other macro economy shocks to which GCCI programs 
are responding?

    Answer. As part of the broader Presidential Global Climate Change 
Initiative (GCCI), USAID is supporting countries to foster low-carbon 
growth, promote sustainable and resilient societies, and reduce 
emissions from deforestation and land degradation.
    For example, one USAID clean energy program in Namibia is helping 
the Namibian government establish a renewable energy feed-in-tariff 
program to create incentives for private sector investment in small-
scale renewable energy projects. The program is currently being 
implemented, with 27 companies competing for the opportunity to develop 
projects which will produce up to a total of 70 megawatts of 
electricity.
    In addition, a USAID sustainable landscapes program in Malawi is 
supporting the implementation of Malawi's national Reducing Emissions 
from Deforestation and Forest Degradation (REDD+) Action Plan, which 
will address the drivers of deforestation on a wide scale. In Malawi, 
agricultural practices and demand for charcoal for cooking are leading 
causes of deforestation and forest degradation. In close collaboration 
with national and district governments, USAID will support supply-side 
measures such as community wood lots and agroforestry, demand-side 
measures such as improved cook stoves and more efficient charcoal 
production technologies, and policy measures such as continued 
decentralization of forest management authority. These investments are 
expected to generate livelihood opportunities for thousands of 
vulnerable households, a greenhouse gas emission reduction of more than 
8 million metric tons, and to leverage at least a million dollars of 
additional investment that supports Malawi's mitigation priorities.
    A USAID adaptation program in Mozambique helped develop 
vulnerability maps that municipalities will use to identify vulnerable 
areas prior to issuing building permits. In the future, the cities will 
use these maps and other tools to create local adaptation plans to 
address the climate change challenges municipalities face. These 
processes can be scaled up to be used in other coastal cities in 
Mozambique or worldwide. Another adaptation program in Tanzania is 
supporting river flow assessments for the Ruvu River Basin, which 
supplies water to Tanzania's key agricultural producing regions. The 
assessments will provide information for better decisionmaking on 
seasonal and yearly water use, even under climate change conditions. 
Pilot land use planning in three villages is incorporating mechanisms 
for water resource management, increasing household capacity to adapt 
to climate variability and change. In addition, water storage and water 
harvesting activities are being implemented in drought-prone areas.
    USAID uses a variety of indicators to measure outcomes from climate 
change programming. USAID investments in clean energy or sustainable 
landscapes must report on the quantity of greenhouse gas emissions 
(GHG), estimated in metric tons of CO<INF>2</INF> equivalent, reduced 
and/or avoided as a result of U.S. Government assistance. USAID 
investments in adaptation must also report on the number of 
institutions with improved capacity to assess and/or address climate 
change risks as a result of U.S. Government assistance and the number 
of stakeholders with increased capacity to adapt to the impacts of 
climate change as a result of U.S. Government assistance. Additional 
standard indicators to measure the outcomes from climate change 
programming include: the number of megawatts of clean energy generation 
capacity supported by U.S. Government which have achieved financial 
closure; the number of people receiving livelihood cobenefits (monetary 
or nonmonetary) as a result of REDD+ and low emission development 
strategies implementation; the number of people implementing risk-
reducing practices/actions to improve resilience to climate change as a 
result of U.S. Government assistance; and the amount of investment 
mobilized for climate change, as supported by USG assistance.
    The main climate and macroeconomy shocks confronted by GCCI 
programs include low access to energy in Africa coupled with price 
shocks, increased frequency of droughts, unpredictable precipitation 
patterns, extreme temperatures, pressures on forests for fuelwood and 
other products, and poor or weak governance and fiscal management. 
USAID considers these factors when designing GCCI programs to ensure 
that programs account for shocks and address key development priorities 
as well as climate change mitigation and adaptation issues.

    Question.  The GCCI seeks to support clean energy and low-emission 
energy initiatives. Yet, more than 4 billion people in Africa are 
currently living without power, and many of these green initiatives are 
more expensive than conventional fuel and power sources. As Assistant 
Administrator for the Africa Bureau, how would you go about striking a 
healthy balance between promoting clean energy programs and increasing 
reliable electricity infrastructure at prices that developing countries 
can afford? Please identify the factors you would use to come to these 
decisions.

    Answer. The administration is committed to working with African 
countries to promote energy access in environmentally responsible ways. 
Through Power Africa, we are taking significant steps to expand clean 
energy access throughout sub-Saharan Africa, supporting the development 
of Africa's diverse energy resources, and in particular its vast wind, 
solar, hydro and geothermal resources. We seek to promote investment in 
generation mixes that ensure affordable and reliable access to modern 
energy services for all people, optimize available resources, and 
enhance energy security. This means support for development of 
indigenous resources like natural gas, as well as renewables. Power 
Africa prioritizes projects based on private sector demand; potential 
for transformational impact; buy-in from the government; opportunities 
to exploit vast resources on the continent; project viability; and 
overall impact.
    An example of Power Africa's support to conventional power sources 
include working with Nigeria's Government and the private sector to 
realize the successful completion of Azura-Edo, a landmark 450 MW open 
cycle gas turbine power plant that potentially represents Nigeria's 
first new project financed Independent Power Producer in over a decade. 
In November 2014, the transaction reached the first stage of financial 
closure thanks in part to USAID's significant transaction advisory 
assistance to develop the Power Purchase Agreement, OPIC's commitment 
of $50 million in financing, and additional financing and hedging tools 
from the World Bank Group.
    Power Africa also supports grid-connected renewable energy 
projects. For example, the Agency is providing technical support to the 
Government of Zambia to develop and adopt a Renewable Energy Feed in 
Tariff with a target of 160 MW of additional renewable energy by 2017.
    Recognizing that Power Africa cannot achieve its energy access 
goals through grid-scale projects alone, Power Africa launched ``Beyond 
the Grid,'' a subinitiative that focuses on expanding access to 
electricity in areas not connected to the national grid. These off-
grid, small-scale energy solutions more reliably, rapidly, and cost 
effectively bring power to communities that may not otherwise have 
access to power, and enable the poorest households to access 
electricity in a way that fits their needs and ability to pay.
    USAID also provides support to low-emission energy initiatives in 
Africa through the Enhancing Capacity for Low Emission Development 
Strategies (EC-LEDS) program. EC-LEDS is a flagship interagency U.S. 
Government program designed to support developing countries' efforts to 
pursue long-term, transformative development while reducing their long-
term greenhouse gas emissions.
    Since its launch in June 2013, Power Africa has successfully 
mobilized significant investment in renewable technologies as well as 
in natural gas throughout sub-Saharan Africa, helping to diversify 
energy portfolios and accelerate countries' transitions toward energy 
security. Like any modern power sector, we recognize that African 
countries need to rely on a broad array of generation sources, 
including wind, solar, hydropower, geothermal, and natural gas. If 
confirmed, I will continue to focus USAID's assistance under Power 
Africa to achieve maximum results in increasing energy access across 
sub-Saharan Africa.

    Question. How, if at all, do GCCI programs affect local farming 
practices in country?

    Answer. USAID programs help improve local farming techniques 
through changes in focus crops or cropping techniques in a country. For 
example, a USAID program in Ethiopia shifted its focus from pepper, 
which is highly sensitive to temperature, to vegetable crops which can 
be grown in greenhouses and are therefore more resilient. In addition, 
USAID programs support activities such as intercropping with trees 
(which can provide shade and/or nutrients to the soil), enhanced water 
management, use of predictive climate services, and financial risk 
management, which help farmers better respond to shocks. For example, 
in Uganda, USAID supports enhanced local farming practices policy 
implementation on the ground by investing in field experiments to 
assess crop response to projected moisture and temperature extremes and 
test various adaptation technologies. By engaging the private sector, 
three equipment suppliers have worked closely with 11 wholesalers to 
jointly organize and conduct trainings and demonstrations of spraying 
and irrigation equipment necessary for adaptation. Two of the suppliers 
have organized similar events on their own with several other 
wholesalers in other districts. Through the Uganda National Farmers' 
Federation (UNFFE), USAID has to date reached about 2,000 farmers with 
adaptation messages. The long-term goal is to cover UNFFE's 78 District 
Farmers' Associations, reaching over two million individual members 
with innovative adaptation messages, practices and technologies.
    Crop losses caused by variable rainfall patterns (timing, quantity, 
and intensity) directly threaten production financing, farmers' 
livelihoods and food security, and overall sustainability of 
agricultural development. To address these threats, a program in 
Senegal worked with farmers, financial institutions, and insurance 
providers to support two critical risk management mechanisms: index-
based insurance for rain-fed crops in different rainfall zones and 
conventional insurance in the northern irrigated industrial production 
zone. The program now insures more than 10,000 producers.

    Question (a). Please discuss the main areas of progress and key 
challenges under Power Africa.

    Answer (a). Since its launch, Power Africa has leveraged $7 billion 
in U.S. Government commitments to mobilize nearly $43 billion in 
external commitments, including more than $31 billion in private-sector 
commitments. Through Power Africa, the United States is working 
together with a range of partners to accelerate private-sector energy 
transactions, by leveraging the assistance, financing, commercial and 
diplomatic tools of the U.S. Government, as well the tools and 
expertise of our bilateral and multilateral partners, including the 
African Development Bank, the World Bank Group, the Swedish Government, 
the European Union, and more than 100 private-sector partners.
    Over 4,100 MW of transactions have reached financial close in sub-
Saharan Africa with Power Africa's involvement, representing roughly 13 
percent of the 30,000 MW goal. This additional power generation has the 
potential to enable approximately 4 million new connections through 
increased availability of power. Additionally, under Beyond the Grid, a 
Power Africa sub-initiative that drives private investment in off-grid 
and small-scale energy solutions, the U.S.-Africa Clean Energy 
Financing facility and the U.S. African Development Foundation have 
funded companies and projects expected to reach 1 million new 
connections.
    Power Africa is working with its partners to overcome key 
challenges constraining electricity access in sub-Saharan Africa. These 
challenges include access to financing, particularly for smaller-scale 
and early-stage projects; limited institutional capacity among 
utilities, regulators, and ministries of energy; and building political 
will to advance critical reforms to attract private sector investment.

    Question (b). What U.S. interests does the initiative serve?

    Answer (b). Power Africa, through its partnership with the private 
sector, provides opportunities for American companies to reach new 
markets. For example, the U.S. Trade and Development Agency (USTDA) 
links U.S. businesses with energy markets across sub-Saharan Africa 
through trade missions to sub-Saharan Africa and United States. These 
events provide a platform for African delegates to present upcoming 
procurement needs to U.S. businesses and to observe the design, 
manufacturing, demonstration, and operation of American products and 
services. By assisting American companies with investment opportunities 
in Africa, Power Africa helps partner countries achieve their 
development goals while creating jobs and business opportunities in the 
United States.
    At a macro level, Power Africa's support to the energy sector in 
sub-Saharan Africa also helps enable economic growth, contributes 
towards stability in the region, and supports U.S. foreign policy 
objectives. Lack of access to electricity has been identifiedas a major 
constraint to growth in many sub-Saharan African countries. Access to 
electricity is critical for the development of diversified economies, 
including the growth of supply chains that add value to African exports 
and opportunities for entrepreneurs and small businesses to grow, as 
well as improved access to health care and education. Broad based 
economic growth and perceptible improvements in government service 
delivery bolster stability by increasing trust in government, 
decreasing incentives for criminality, and reducing some of the 
grievances and vulnerabilities upon which extremist elements prey when 
seeking new recruits.

    Question (c). What criteria are used to select Power Africa 
assisted projects, which in some cases may receive substantial U.S. 
credit backing?

    Answer (c). To identify priority transactions, Power Africa uses 
the following criteria: private sector demand; potential for 
transformational impact; buy-in from the government; opportunities to 
exploit vast resources on the continent; project viability; and overall 
impact. Additionally, each U.S. Government agency performs its own due 
diligence in choosing to extend credit or grants; Power Africa partners 
are not exempted from this process.

    Question (d). How does USAID coordinate with the multiple other 
U.S. agencies that are also involved in this endeavor?

    Answer (d). USAID convenes biweekly Power Africa Working Group 
(PAWG) meetings with interagency participation from Power Africa's 12 
U.S. Government agencies, including staff based in Washington, DC and 
the Coordinator's office in Pretoria, South Africa. The PAWG provides a 
forum for each agency to shareproject and pipeline updates, as well as 
for the interagency to discuss cross-cutting issues such as expansion 
of Power Africa activities and interventions across the continent; 
updates on coordination efforts with our bilateral and multilateral 
partners; monitoring and evaluation updates; and discussion about gaps 
and tools that are still needed to grow the sector. In addition, most 
teams in the field conduct interagency calls at least monthly to share 
details specific to activities in country. To further solidify this, 
the Power Africa Coordinator's office has developed and deployed 
several specific liaison positions with interagency partners including 
the Overseas Private Investment Corporation, the U.S. Department of 
Commerce, and USTDA in order to enhance interagency collaboration.
    If confirmed, I would continue to focus USAID's assistance under 
Power Africa, and leverage the combined technical resources of the 12 
U.S. government agencies as well as our bilateral, multilateral and 
private sector partners to achieve maximum results in increasing energy 
access across sub-Saharan Africa.

    Question (e). To what extent and in what ways, if any, is Power 
Africa supporting large hydropower projects?

    Answer (e). Hydropower does and will continue to play a major role 
in power sectors throughout sub-Saharan Africa. While Power Africa may 
provide support to hydropower projects at any scale, to date, Power 
Africa has focused its support for the development of Africa's 
hydroelectric resources on small scale hydropower projects. Consistent 
with existing statute, projects involving the creation of large 
hydroelectric dams require a more critical assessment that fully 
considers projected environment and social impacts, economic risks and 
returns, and robust management and oversight. In addition, while 
hydropower development has traditionally been driven by the public 
sector, Power Africa seeks wherever possible to prioritize private 
sector participation and public-private partnerships.

    Question.  Please describe key approaches across the major U.S. 
development initiatives in Africa to expand the impact of U.S. 
development aid and boost country ``ownership'' of development. What 
are some key examples of how country ``ownership'' is actualized in 
practice? How have the initiatives changed program M&E, and approaches 
to innovation in recent years? How is ``stove-piping'' between 
initiatives avoided and complementarity promoted? What ``whole of 
government'' innovations or best practices have arisen as a result of 
initiative implementation in Africa?

    Answer. The major U.S. development initiatives in Africa are 
components of USAID's overall strategic approach. While they focus on 
specific development sectors, all initiatives are implemented with the 
goal of promoting both country ownership and program integration. Our 
direct partnering with local actors and local systems, referred to as 
``local solutions,'' reflects USAID's commitment to supporting 
development that is locally owned, locally led, and locally sustained. 
Country or local ownership implies ownership of priorities, 
implementation, and resourcing. This includes not only governments, but 
also the private sector and civil society.
    Integrating Presidential Initiatives in Country Development 
Cooperation Strategies (CDCS) is the primary means to avoid stove 
piping and promote complementarity. USAID uses strategic planning to 
define development objectives and maximize the impact of development 
cooperation, integrating individual country-based Presidential 
Initiative plans and strategies to ensure that the investments being 
made under these Initiatives promote sustainable development outcomes 
and maximize the impact of development cooperation. The CDCS 
demonstrates how the country-level strategies developed for the 
Presidential Initiatives use causal logic, are integrated with the 
overarching strategy, and incorporate appropriate democratic governance 
and economic growth interventions. Missions have the flexibility to 
reflect country-team developed plans for the Global Health Initiative 
(GHI), Feed the Future (FTF), and Global Climate Change in the CDCS and 
performance indicators that support Initiative-specific results 
frameworks are included in the CDCS and Performance Management Plans.
    Descriptions of key approaches from the Feed the Future, Trade 
Africa and the President's Malaria initiatives are provided below.
Feed the Future
    Feed the Future, a whole-of-government initiative to address global 
hunger and food security, renews the U.S. Government's commitment to 
invest in sustainably reducing hunger and poverty. Feed the Future 
invests in country-owned plans called Country Investment Plans that 
support results-based programs and partnerships. These plans have 
produced impressive results--country allocations dwarf total donor 
allocations, demonstrating the depth of country ownership. Those 
country allocations are creating the foundation for the type of 
transformational development needed to secure stronger agricultural 
growth. In Africa, these multiyear investment plans are being reframed 
and updated to incorporate goals from the Comprehensive Africa 
Agriculture Development Program (CAADP) and the 2014 African Heads of 
State-agreed Malabo Declaration, which sets out African agricultural 
development goals over the next decade. These Country Investment Plans 
reflect countries' needs and priorities, identified through 
consultative processes led by country governments with civil society 
and private sector inputs and reviews. They serve as the foundation for 
countries to mobilize resources and coordinate with development 
partners to engage in meaningful dialogue on a common framework for 
action. Another key example of how country ownership is actualized in 
practice are the decisionmaking structures the Feed the Future program 
has put in place, such as the country-level Agriculture Sector Working 
Group. These groups include government officials and in-country donors 
that make decisions on agricultural sector planning and prioritization. 
The Working Group is frequently chaired by a government official who 
facilitates coordination.
    To promote complementarity, Feed the Future has also better 
integrated agriculture and nutrition, working with USAID's health and 
nutrition programs. USAID is maximizing results by implementing both 
Feed the Future and Global Health programs in the same geographic area, 
where possible. Feed the Future and Global Health programs intersect 
around nutrition, due to the multisectoral nature of the causes, 
consequences, and solutions to undernutrition. Integrated nutrition 
programs reflect the specific determinants of undernutrition and are an 
important innovation, reflecting the evidence that producing more food 
is a necessary, but not sufficient, condition for improving nutrition.
    Finally, the Initiative has also developed an extensive monitoring 
and evaluation (M&E) system, collecting critical baseline information 
and tracking a set of specific indicators across all of its programs. 
Using this M&E framework, Feed the Future reports on the impacts of its 
programs at the household level, and utilizes data to redesign programs 
when necessary.
Trade Africa Initiative
    The Trade Africa Initiative supports implementation of the U.S. 
Strategy Toward Sub-Saharan Africa by enabling regional economic 
communities to improve Africa's trade competitiveness, encourage export 
diversification, and ensure that the benefits from growth are broad-
based. USAID's Trade and Investment Hub supports country ownership 
through strategies that are aligned with the plans and priorities of 
the regional economic communities that they support. Specifically, 
USAID has direct assistance agreements with the East African Community 
(EAC), the Common Market for Eastern and Southern Africa, and the 
Permanent Interstate Committee for Drought Control in the Sahel, 
providing tailored assistance to support these groups' efforts to 
increase regional integration, based on their needs. For example, 
USAID's activities with TradeMark East Africa are guided by the EAC 
Secretary General's CEO Forum, which determines its activities twice a 
year. In the five Trade Africa expansion countries of Cote d'Ivoire, 
Ghana, Mozambique, Senegal and Zambia, USAID works with its interagency 
partners, including the U.S Trade Representative, the U.S. Department 
of Agriculture, the Department of Commerce and the Department of State 
to develop joint work plans with respective host country governments to 
ensure mutual accountability.
    This initiative represents a whole-of-government integration of M&E 
through the Trade and Investment Hubs, which share a top-line results 
framework with shared goals, and a standard method for collecting data.
The President's Malaria Initiative
    The President's Malaria Initiative (PMI) began in 2005 as a $1.2 
billion, 5-year program with the goal of reducing malaria-related 
deaths by 50 percent in 15 focus countries. Under the PMI Strategy 
2015-2020, the U.S. Government's goal is to work with PMI-supported 
countries and partners to further reduce malaria deaths and 
substantially decrease malaria morbidity, towards the long-term goal of 
elimination. In 2015, PMI launched its next 6-year strategy, which 
takes into account progress over the past decade and the new challenges 
that have arisen. Malaria prevention and control remains a major U.S. 
foreign assistance objective, and PMI's Strategy fully supports the 
whole-of-government approach through its alignment with U.S. 
Government's vision of ending preventable child and maternal deaths and 
ending extreme poverty. PMI actualizes country ownership by supporting 
the strengthening of the overall capacity of health systems. 
Specifically, PMI helps build national capacity in a variety of cross-
cutting areas that benefit both malaria and other health programs, 
including strengthening supply chain management, laboratory diagnosis, 
and monitoring and evaluation systems. In highly endemic countries, 
malaria typically accounts for up to 40 percent of outpatient visits 
and hospital admissions. Reducing malaria transmission levels in these 
countries has a positive effect on the rest of the health system by 
allowing health workers to focus on managing other important childhood 
illnesses, such as pneumonia, diarrhea, and malnutrition. PMI has 
developed an extensive M&E approach that monitors activities and 
collects data toward the following goals: sustaining gains against 
malaria by using preventive measures, particularly the increased 
coverage and use of insecticide treated nets and expanding and 
improving integrated approaches for diagnosis and treatment of 
childhood illnesses that have already been developed at facility and 
community levels.

    Question (a). Please describe the status of administration efforts 
to upgrade and transform the three USAID trade hubs into ``U.S.-African 
Trade and Investment Hubs,'' making them resource centers both for 
African exporters targeting U.S. markets and U.S. firms targeting 
African markets.

    Answer (a). The first Trade and Investment Hub, the East Africa 
Trade and Investment Hub, was launched in September 2014. The West 
Africa Trade Hub was transformed into a Trade and Investment Hub in 
September 2015. The new Southern Africa Trade and Investment Hub is 
under procurement and is expected to launch in early 2016.

    Question (b). What are USAID's main activities and current and 
prospective challenges under Trade Africa?

    Answer (b). Under Trade Africa, USAID manages the three Trade and 
Investment Hubs and maintains a relationship with the TradeMark East 
Africa program, focusing on the hard and soft infrastructure necessary 
to reduce the time and cost tomove goods across borders. USAID is also 
working with an Interagency Steering Group to expand Trade Africa 
beyond the five East African Community countries to include new 
partners: Cote d'Ivoire, Ghana, Mozambique, Senegal, and Zambia. With 
all of our Trade Africa partners we are focused on capacity building to 
support trade facilitation, improved compliance with sanitary and 
phytosanitary standards, elimination of technical barriers to trade, 
and increased private sector competitiveness. We are also working to 
support the Economic Community of West African States (ECOWAS) to 
improve regional trade. Challenges include a wide infrastructure 
deficit, which stifles the productivity of African companies, as well 
as breaking down barriers to intraregional and U.S.-Africa trade to 
increase the countries' competitiveness, which we are addressing 
through Trade Africa and other initiatives such as the Borderless 
Alliance and Food Across Borders.

    Question (c). With what other regional communities is USAID working 
to advance economic growth and regional integration?

    Answer (c). Through a combination of direct assistance, joint 
activities and/or short-term technical assistance, USAID programs 
advance economic growth and support regional integration. Support is 
tailored to the needs of the regional economic community including the 
East African Community (EAC), the Common Market for East and Southern 
Africa (COMESA), the Economic Community of West African States 
(ECOWAS), the West African Economic and Monetary Union (UEMOA), the 
Permanent Interstate Committee for Drought Control (CILSS), the 
Southern African Development Community (SADC) and the Southern African 
Customs Union (SACU).

    Question (d). What other trade and investment focused activities is 
USAID supporting in Africa?

    Answer (d). President Obama launched the Africa Private Capital 
Group (APCG) at the U.S.- Africa Leaders' Summit in August 2014 as part 
of the U.S. expanded commitment to trade and investment. This program 
is committed to unlocking commercially driven capital to achieve 
development impacts across sub-Saharan Africa. APCG consists of a 
highly experienced USAID team based in South Africa pursuing a strategy 
with three primary focus areas: (1) Facilitating development-related 
transactions sourced from private sector investors; (2) Improving 
municipalities' ability to finance and service debt for public service 
projects, and; (3) Engaging South African pension funds to encourage 
investments in development-related transactions within sub-Saharan 
Africa. USAID also actively participates in the work of the President's 
Advisory Council on Doing Business in Africa.

    Question. What is USAID's role in implementing the Young African 
Leaders Initiative? What is the approximate annual cost of the 
initiative, and what concrete outcomes, if any, has it produced? What 
impacts on future U.S. engagement arising from YALI are foreseen, and 
how will they be measured?

    Answer. The President's Young African Leaders Initiative (YALI) is 
implemented by a coordinated interagency team that includes U.S. 
Department of State, USAID, and the U.S. African Development Foundation 
to support young Africans as they work to spur growth and prosperity, 
strengthen democratic governance, and enhance peace and security across 
Africa. USAID supports two major components of the initiative, the 
Mandela Washington Fellowship and the YALI Regional Leadership Centers. 
Both programs support young leaders working in business and 
entrepreneurship, civic leadership, and public management.
    To implement the YALI Mandela Washington Fellowship, USAID provides 
professional practicums for Fellows to work at businesses and 
organizations in Africa; mentoring matches for Fellows upon return to 
Africa; competitive travel grants for selected Fellows to present at 
major conferences; and regional conferences in Africa that bring 
Fellows together for major networking and peer collaboration 
opportunities. With the skills developed during the program, the first 
classes of Mandela Washington Fellowship alumni are already building 
innovative businesses, connecting with American and African investors, 
forging new relationships with young leaders across Africa, and serving 
their communities. USAID's support to the Mandela Washington Fellows 
will average $4.8 million a year over the next 5 years.
    USAID also manages four YALI Regional Leadership Centers (RLCs), 
which offer expanded professional and leadership development 
opportunities to thousands of additional young African leaders on the 
continent. RLCs in Nairobi and Accra opened in July and August 2015, 
respectively, and initial feedback from participants indicates the 
program is meeting its goals to empower and connect young leaders. RLCs 
in Dakar and Pretoria are expected to open before the end of 2015. 
USAID's funding for the RLC is anticipated to be approximately $72 
million over 5 years. To leverage USAID funding, and to ensure that the 
RLCs provide high quality and market-driven training, each RLC is 
designed as a public-private partnership. Partners including Microsoft, 
McKinsey & Company, Procter & Gamble, General Electric, Intel, Dow 
Chemical Company, and The MasterCard Foundation, have already committed 
more than $80 million in financial and in-kind resources to support the 
Centers. The MasterCard Foundation alone has committed $15 million in 
financial resources. USAID continues to create new partnerships that 
will further increase private sector engagement in the future.
    USAID is tracking alumni Mandela Washington Fellows and RLC 
participants over time to capture the ultimate impacts of YALI 
activities. USAID monitoring includes detailed implementation 
indicators, such as surveys and interviews with YALI beneficiaries. 
This monitoring includes tracking progress toward the overarching goals 
of enhancing young Africans' leadership skills, knowledge, and 
attitudes so that they may more effectively drive economic and social 
progress, serving their communities, and building enduring regional 
networks. By cultivating a critical mass of highly motivated and 
skilled young leaders, USAID anticipates that many of the highly 
motivated young leaders who participate in the program will return to 
their home countries with new skills and connections that will enable 
them to better contribute to their countries' economic development and 
political dialogue.

    Question (a). In what ways does USAID's Ebola response support 
durable medium- to long-term capacity-building goals?

    Answer (a). USAID's Ebola response activities have prioritized 
eliminating the spread of the outbreak. However, USAID's programs also 
work to build the capacity of government counterparts and local actors 
to address medium- and long-term goals, such as the strengthening of 
health systems. Capacity-building work to support medium-term goals has 
included: supporting County Health Teams responding to death alerts and 
transferring capacity of screening, isolation, and triage from stand-
alone Ebola Treatment Units (ETU) to hospitals and other health 
facilities in Liberia; supporting Non-Government Organizations (NGO) 
conducting community social mobilization activities in Liberia; and 
providing Infection Prevention and Control (IPC) training for health 
workers in all three countries. Additionally, USAID is working to 
transfer capacity of isolation and treatment, safe burial, IPC 
training, and supply chain management to relevant government actors in 
Liberia, Guinea, and Sierra Leone.
    As we transition from the emergency response, USAID is implementing 
efforts that will support longer-term recovery. These recovery efforts 
will enable the three countries to better prevent, prepare for, and 
respond to future Ebola outbreaks. Activities are focused on 
recapturing development gains lost due to the outbreak; strengthening 
key institutions and infrastructure whose weakness helped enable the 
rapid spread of Ebola; and addressing the low levels of citizen trust 
in government that reduced the willingness of peoples to accept social 
messaging on Ebola.

    Question (b). What have been or may be the key USAID Ebola response 
achievements and challenges, including currently and prospectively.

    Answer (b). USAID has helped bend the epidemiological curve and 
averted the horrific worst-case scenarios predicted by initial computer 
modeling through the following activities: command and control of the 
response, case management, surveillance and epidemiology, social 
mobilization, and logistics management. As a result of USAID's efforts, 
Liberia has been declared Ebola-free, Sierra Leone currently has no 
cases and is in its countdown phase towards an Ebola-free declaration; 
and Guinea's last four cases were from known contact lists, meaning 
that contact tracers were aware prior to diagnosis that the infected 
individuals may have been exposed to the Ebola virus.
    Key challenges to responding to the Ebola outbreak include a lack 
of public health systems infrastructure, slow behavior change by the 
public, and mistrust of government within impacted communities. All 
three create significant hurdles for those attempting to detect, 
diagnose, and track cases of Ebola, both presently and prospectively. 
USAID will continue to work with the three affected countries to 
address thesechallenges.

    Question (c). What lessons have been learned?

    Answer (c). USAID is collecting lessons learned as we continue our 
response and recovery efforts. USAID and the larger donor community 
have learned that the speed of a response is essential and that 
international, regional and national early warning and surveillance 
systems and mechanisms are critical to ensure rapid response. In terms 
of coordination, emergency response requires internationally 
coordinated communication of needs, identification of capability gaps, 
and efforts to increase transparency of activities across partners. 
After many years of work in developing countries, USAID recognizes the 
importance of collaborating with community leaders and existing 
networks, particularly in crises such as the Ebola epidemic. 
Additionally, collaborating with local religious leaders to understand 
and adapt traditional burial rituals was and continues to be critical 
to controlling the spread of Ebola. Finally, fears must be addressed by 
sharing knowledge about the disease to prevent stigmatization and 
facilitate the social reinsertion of survivors and victims' families.

    Question (d). How, if at all, are current Ebola programming efforts 
changing in relation to the spend plans submitted to Congress in early 
2015?

    Answer (d). Programming efforts have not significantly changed from 
how they were planned and articulated in the initial January Spend 
Plans and succeeding Section 9004 Monthly Reports. Since January, USAID 
has adjusted the amount of funding programmed according to the current 
needs on the ground. For example, since there were fewer cases of EVD 
than predicted, USAID is supporting some activities such as case 
management to a lesser degree than planned, and putting more focus on 
IPC, social mobilization, and transition activities.

    Question. Please describe the USAID AFR approach to working with 
the Office of Transition Initiatives and, more broadly, in preventing 
and mitigating conflict. What has been the focus of and relative 
progress under USAID conflict mineral programs?

    Answer. The Office of Transition Initiatives (OTI) is currently 
operating in five countries in sub-Saharan Africa: Cote d'Ivoire, Mali, 
Niger, Nigeria and South Sudan. I am pleased to report that within each 
of these countries, OTI is working closely with Mission staff and 
USAID's Africa Bureau to identify programs that complement other 
assistance efforts and lay a foundation for longer-term development. In 
addition, OTI, USAID's Africa Bureau, and Mission staff work together 
to facilitate a transition from OTI activities to longer-term, 
complementary development efforts in post-conflict situations.
    The risk of instability in African countries is linked to many 
different factors including poor governance, corruption, and rising 
transnational threats, such as violent extremism, drug trafficking, 
illegal exploitation of natural resources, and piracy. USAID's Africa 
Bureau works closely with individual missions to address these 
challenges, notably by conducting assessments to understand the 
underlying dynamics that are driving state fragility and then providing 
technical expertise for program design, implementation, monitoring and 
evaluation that address those dynamics. USAID conducts extensive 
conflict analysis in high-risk countries and is working to ensure that 
development programming across all sectors is conflict sensitive. USAID 
also supports conflict early warning and prevention mechanisms with the 
aim of mitigating violence before it starts.
    USAID's $17 million Responsible Minerals Trade Program in the 
Democratic Republic of the Congo focuses on establishing a conflict-
free supply chain, promoting civilian control of the minerals sector, 
ensuring vulnerable populations are protected and supporting regional 
auditing and monitoring of conflict-free minerals (gold, tin, tantalum, 
and tungsten). USAID is also an active participant in the Public-
Private Alliance for Responsible Minerals Trade (PPA). The PPA is a 
multisector and multistakeholder initiative to support supply chain 
solutions to conflict minerals challenges in the Great Lakes Region.
    Pilot conflict-free supply chains have been established, allowing 
global markets to purchase minerals consistent with existing statute 
and generating 200 percent more revenue for artisanal miners, traders, 
exporters and the government of the Democratic Republic of the Congo 
through transparent taxes. The PPA membership has grown since its 
launch in 2011 and is creating links among companies, advocacy groups, 
regional governments, end-users and civil society. Formal legal and 
regulatory frameworks have been put in place to promote conflict-free 
supply chains.

    Question. Please describe USAID's key current and prospective 
approaches to crisis responses, conflict mitigation, delivery of key, 
life-saving services, and foundation building for an eventual 
transition from relief to development.

    Answer. Across Africa, USAID is doing everything possible to assist 
those affected by conflict. In fiscal year 2014, USAID provided 
approximately $1.2 billion in emergency food assistance and an 
additional $481 million in other lifesaving humanitarian assistance, to 
displaced and conflict-affected people across the continent.
    To ensure our assistance is responsive and adaptive, USAID has 
early warning systems, including the Famine Early Warning System 
Network (FEWSNET), and assessment tools that measure the risk of armed 
conflict. These systems inform programs to prevent and respond to 
crises--from droughts to electoral violence--in a timely manner.
    At the heart of Africa's conflicts are unstable relationships 
between societies and their states. That is why, in addition to our 
humanitarian response, USAID invests in programs that prevent and 
mitigate conflicts, address state fragility, and lay the groundwork for 
more inclusive, participatory governance.
    Since 2011, USAID has supported and promoted the New Deal for 
Engagement in Fragile States. The New Deal, endorsed by the United 
States and nearly 40 countries and multilateral organizations, 
establishes peace and state-building goals and action plans, to enable 
democratic, resilient communities in Africa that can overcome complex 
crises, and thus lessen their humanitarian need.
    Building on existing capabilities, USAID is working to improve our 
use of tools for analyzing, tracking, and forecasting outbreaks of 
armed conflict. The FY 2016 budget request seeks to strengthen funding 
for conflict and atrocity prevention through the Complex Crises Fund 
and the Transition Initiatives account. Doing so gives USAID the 
flexibility to respond quickly in crises and to devote resources where 
they can have the greatest impact.
    These programs are playing a critical role in addressing the root 
causes of instability in Africa. For instance, USAID's Nigeria Regional 
Transition Initiative provides small, strategic assistance to local 
groups in northeastern Nigeria to improve government responsiveness to 
citizen expectations and reduce perceptions of marginalization that 
have contributed significantly to Boko Haram's ability to grow. 
Additionally, programs in the Central African Republic (CAR) are 
helping to prevent genocide and mass atrocities, expanding the space to 
safely provide humanitarian assistance, and supporting conditions 
favorable to a peaceful political transition.

    Question. Please describe the evaluation and analysis process USAID 
is pursuing to assess how to best support the fragile peace accord in 
South Sudan.

    Answer. The peace accord in South Sudan represents a key 
opportunity to help the people that are affected by recurrent cycles of 
violence come together to forge a brighter future. The United States 
and other members of the international community have quickly moved to 
support the steps laid out in the implementation of this agreement, 
working with the men and women of South Sudan who are committed to 
peace, and holding to account those who would undermine the agreement 
or violate the cease-fire. Since the signing of the peace agreement, 
USAID has been working closely with the State Department's Office of 
the Special Envoy for Sudan and South Sudan and other State Department 
Bureaus and Offices, as well as other donors, to determine how best to 
support the peace process. In doing so, we are using the following 
assessment criteria to evaluate our current programs and inform 
potential future programs:

   Drawing from lessons the international community has learned from 
        past experiences in providing assistance in countries 
        recovering from conflict, including in South Sudan.
   Identifying the elements of the agreement that are the most 
        critical to its success and which require programmatic 
        assistance.
   Determining what resources and institutions--financial and other--
        are in place or available to support the peace process.
   Considering where USAID has unique capabilities or a comparative 
        advantage vis-a-vis other donors.

    For example, we understand that long term peace will be depend on 
addressing the impact of the crisis and developing an approach to 
ensure communities, religious leaders, and local partners understand 
and feel included in the process. To do this effectively, we will 
ensure that our programming takes a conflict-sensitive approach, 
includes wide stakeholder involvement and addresses reconciliation and 
trauma healing.
    Rebuilding trust and restoring confidence of citizens across 
communities will be imperative to ending continuing violence and 
building a foundation for a peaceful future. This approach recognizes 
and goes hand-in-hand with the massive humanitarian intervention to 
mitigate and address the human costs of the war. In concert with other 
donors, USAID continues to press secure humanitarian access to enable 
relief actors to rapidly assess evolving needs and scale up life-saving 
assistance in response to unmet needs. If confirmed, I will continue to 
ensure that our programs best help the South Sudanese people as the 
situation continues to evolve.

    Question. What is USAID doing to ensure the sustainability of 
stability and recovery gains made in Mali since 2013? What are the main 
areas of focus for USAID's efforts to prevent conflict and violent 
extremism in Mali? What roles should USAID play in addressing security 
challenges in the Sahel and the need for long-term regional 
development, stability, and better governance?

    Answer. Ensuring the sustainability of stability and recovery is a 
primary goal of USAID programming in Mali, as USAID's recently approved 
Country Development Cooperation Strategy for Mali includes the goal 
Malians Securing a Democratic, Resilient and Prosperous Future.'' USAID 
programming in Mali has focused on humanitarian and community 
stabilization assistance, as well as basic health and education 
services and was designed to be flexible and scalable should 
opportunities emerge for increased engagement. Now that the peace 
agreement has been signed, USAID will move into providing longer term 
development assistance using a Relief-to-Development Transition 
approach, taking advantage of the increased opportunities offered by 
the agreement. The Relief-to-Development activities will focus on 
conflict mitigation, and countering violent extremism (including a 
focus on Women, Peace and Security), livelihoods, food security, 
nutrition, climate change, and health and education services.
    As security permits, USAID intends to expand core Governance, 
Resilience and Prosperity programming to areas in the North, 
emphasizing engagement with youth and women. This programing includes 
strengthening public service delivery of health and education services 
and fostering economic growth, particularly in the agricultural sector, 
to boost incomes, nutrition and employment opportunities. USAID will 
support increased government accountability and access to justice in 
direct partnership with the Malian Government and through engagement 
with civil society, furthering the Government of Mali's 
decentralization goals and strengthening the public's trust in their 
government. Working in select northern communities found to be most at-
risk for extremism, USAID's program to counter violent extremism will 
work with Malian government actors and local communities to address 
priority development and reconciliation needs and link isolated 
communities so that they work together to resolve issues.
    More broadly, USAID is playing an important role in addressing 
stability challenges in the Sahel region by modifying its approach to 
development assistance to better address and keep pace with the 
vulnerabilities emerging across borders in the region as a whole. 
Programs work to link justice and security issues more effectively, 
help local communities hold their governments accountable, and improve 
services and livelihoods for Malians These activities can provide 
economic opportunities and bolster popular support for friendly, but 
poorly functioning partner governments in the region.

    Question (a). What have been the impacts of large cuts in estimated 
actual FY 2015 DG funding compared to the requested level (including 
for key countries, e.g. the Democratic Republic of Congo, Kenya, and 
Nigeria) on the potential to realize U.S. DG priorities in Africa?

    Answer (a). The U.S. Government cannot effectively achieve 
sustainable outcomes in health, food security and climate change in 
Africa without simultaneously investing in good governance, 
transparency, accountability and inclusion. Decreased, or inconsistent 
funding levels make it more difficult for USAID to make strategic 
investments for long-term change in the environment for democracy, 
rights and governance in the countries in which we work, in line with 
the Country Development Cooperation Strategies we have in place.
    At the same time, I understand the challenges of the current budget 
environment and am confident that USAID can achieve considerable 
progress within the budget constraints. As an Agency, we have also made 
efforts to locate additional resources for some of the highest priority 
needs on the continent in FY 2015, including in Kenya and Nigeria. In 
Nigeria, for example, sustained, long-term USG investment in the 
development of civil society networks and institutions like the 
Independent National Electoral Commission contributed to the historic 
transfer of political power witnessed in 2015. Continued investment is 
necessary to consolidate those gains. USAID is also better integrating 
DRG principles into other development sectors, working with fellow U.S. 
Government colleagues in health, education, water and economic growth, 
to ensure that core human rights and governance principles are embedded 
in other sectors, as integrated DRG programming alongside core DRG 
programming will ensure that development investments in all sectors are 
sustained and protected.
    Additionally, to address budget constraints, USAID's FY 2016 
request for democracy, rights and governance programming reflects an 
increase over recent years. The request represents a 10 percent 
increase over the FY 2015 request and a 100 percent increase over the 
FY 2014 actual level. It is a testament to the goodwill of the American 
people and the U.S. Congress that USAID is able to continue providing 
much-needed assistance abroad.

    Question (b). Why was there zero funding of DG programming in 
Ethiopia in FY 2015 given widespread concerns over negative democratic 
trends there?

    Answer (b). Ethiopia was one of the countries subject to budget 
reductions for democracy, rights and governance work in recent years, 
however $1.25 million in FY 2015 funds have now been identified for 
Ethiopia to support human rights, enhance governance through social 
accountability activities, and strengthen civil society engagement, and 
additional funding was requested for FY 2016. USAID is also better 
integrating DRG principles into other sectors in Ethiopia, as 
integrated DRG programming alongside core DRG programming will ensure 
that development investments in all sectors are sustained and 
protected.
    For example, Social Accountability (SA) is providing new forums for 
citizens to monitor the Government of Ethiopia's service delivery 
commitments and to advocate for improvements, and USAID is integrated 
these Social Accountability methods in the education sector to drive 
public oversight of results. Specifically, parent-teacher associations 
will use methods such as community ratings of education quality to 
pressure government offices to maintain reading enrichment support 
through libraries and teachers. Additionally, in the Health Sector, 
USAID is standing up 2,500 governance boards for health centers and 
hospitals across Ethiopia, where local officials decide how to spend 
patient fees and improve services. USAID's democracy and health teams 
are collaborating to bring valid citizen input into these boards and 
feed into budget decisions of hospitals and health centers.
    Ethiopia is a key partner for progressing development and security 
in the region, and through this close relationship we promote the 
importance of democracy, rights and governance for peace and 
prosperity. In addition to our DRG programming, we recognize that U.S. 
diplomatic engagement is critical to promoting DRG. USAID works with 
the State Department, the White House and other agencies to ensure the 
United States consistently raises DRG with Ethiopian officials at the 
highest levels.

    Question (a). How do USAID's education programs and country 
priorities align with national and regional development strategies?

    Answer (a). USAID missions work closely with host country 
governments and citizens, civil society organizations, the private 
sector, multilateral organizations, other donors, the State Department, 
and other U.S. Government agencies to develop a Country Development 
Cooperation Strategy (CDCS) that supports U.S. foreign policy 
priorities, ensures strategic alignment with host country development 
priorities, and promotes mutual accountability.
    USAID's Education Strategy provides the overarching goals and 
parameters for the development of activities in the education sector in 
the countries that USAID supports, and those goals and parameters are 
incorporated in the CDCS. USAID's Education Strategy focuses on three 
goals: improved reading skills for 100 million children in primary 
grades; improved ability of tertiary and workforce development programs 
to generate workforce skills relevant to a country's development goals; 
and increased equitable access to education in crisis and conflict 
environments for 15 million learners. By setting focused, measurable 
goals and targets, the Education Strategy holds the Agency accountable 
for results.
    Sixteen USAID Missions in Africa address education in their CDCSs. 
For example, one of the development goals for Ghana's CDCS is a focus 
on improved reading performance in primary schools, with the ultimate 
goal of assisting individuals to reach middle income status and achieve 
personal economic stability, contributing to national economic growth.

    Question (b). How do USAID's higher education programs partner with 
universities in Africa as well as businesses to promote innovation, 
economic development, and job growth?

    Answer (b). Improved ability of tertiary and workforce development 
programs to generate workforce skills relevant to a country's 
development goals is the second goal of the USAID education strategy, 
which was developed based on a research review from the World Bank that 
presented evidence indicating that tertiary education attainment raised 
developing countries' productivity and GDP significantly. Increased 
access to vocational/technical and tertiary education and training for 
underserved and marginalized groups; improved quality of tertiary 
education and research; and improved relevance and quality of workforce 
development programs are all critical components of USAID programming 
in higher education. There are a variety of approaches to programming 
and partnerships in these areas, each tailored to the context and 
specific objectives of the USAID mission.
    For example, a consortium of U.S. universities (Rutgers University, 
North Carolina State University, and the University of Michigan) is 
working with Liberia's leading universities to transform the higher 
education fields of engineering and agriculture to be more dynamic and 
responsive to evolving national needs. Concurrently, they are 
supporting linkages between employers and higher education institutions 
ensuring that students are equipped with skills relevant to employers 
in Liberia, so that they will be job-ready upon graduation. 
Coordination and collaboration with the private sector has also been 
successful. For example, last year the consortium organized an employer 
forum that included 65 university students and key employers in the 
fields of engineering and agriculture. The forum helped to bolster 
employer support for providing internship and employment opportunities 
for students as well as increased private sector engagement with the 
universities.
    Additionally, a partnership between the Ethiopian Institute of 
Water Resources (EIWR) at Addis Ababa University and the University of 
Connecticut provides invaluable institutional assistance in sustainable 
water resources management. With USAID's support, Addis Ababa 
University has assumed responsibility for a number of innovative 
initiatives that will greatly benefit the country in the long-term, 
including building graduate-level education programs, increasing the 
institution's ability to conduct research, and improving outreach and 
recruitment.
    As part of the Young African Leaders Initiative, the USAID Africa 
Regional program is in the process of establishing four Regional 
Leadership Centers to enhance leadership and training opportunities in 
Africa and better leverage over $200 million in ongoing youth programs 
and initiatives, such as university partnerships and vocational 
training, on the continent. The centers will focus on engaging leaders 
between the ages of 18 and 35 from a variety of backgrounds and a 
diversity of experience, providing accessible leadership training, 
incubating organizations and entrepreneurship, and supporting 
professional connections among African leaders. Based in Ghana, Kenya, 
Senegal, and South Africa, each center will be run as a public-private 
partnership, capitalizing on the ingenuity and dynamism of the private 
sector and the programmatic and educational resources of USAID. Ten 
private sector partners and foundations have joined USAID in supporting 
the effort.

                               __________


                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                                       U.S. Senate,
                                    Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

John Morton, of Massachusetts, to be Executive Vice President 
        of the Overseas Private Investment Corporation
Kenneth Damian Ward, of Virginia, to be U.S. Representative to 
        the Organization for the Prohibition of Chemical 
        Weapons
Hon. Peter William Bodde, of Maryland, to be Ambassador to 
        Libya
Marc Jonathan Sievers, of Maryland, to be Ambassador to the 
        Sultanate of Oman
Elisabeth I. Millard, of Virginia, to be Ambassador to the 
        Republic of Tajikistan
                              ----------                              

    The committee met, pursuant to notice, at 3:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Risch, 
presiding.
    Present: Senators Risch, Murphy, and Markey.

             OPENING STATEMENT OF HON. JIM RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. All right. Subcommittee meeting will come to 
order. And appreciate all of you attending today. Certainly 
have an interesting agenda.
    And I would say this. We will start briefly with some 
opening statements, and then we will hear from each of you, and 
then Senator Murphy and I will have deep and probing questions, 
I have no doubt.
    We have an interesting mix of countries and of interest 
groups represented here. And certainly, I think we will use 
this opportunity, obviously, to learn more about the areas that 
you are going to and the challenges that you are going to face 
here. And I am sure you will have the opportunity to tell us 
what is the highest thing on your mind as you approach your 
assignment.
    So, as always, we want to thank each and every one of you 
for your service to the United States.
    So, with that, Senator Murphy.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman.
    We are going to cover a pretty diverse array of issues, 
from keeping the world safe from chemical weapons, to national 
security interests in the Near East and Central Asia, to our 
investment strategy abroad.
    So, I will match your brevity, Mr. Chairman, and get 
straight to the statements from our witnesses today. Look 
forward to the hearing and to their confirmation process.
    Thank you very much, Senator Risch.
    Senator Risch. Wise decision, Senator.
    Mr. Morton, we will start with you, and--welcome to the 
committee. We would like to hear what you have to say.

   STATEMENT OF JOHN MORTON, NOMINATED TO BE EXECUTIVE VICE 
    PRESIDENT OF THE OVERSEAS PRIVATE INVESTMENT CORPORATION

    Mr. Morton. Thank you very much. Chairman Risch, Ranking 
Member Murphy, members of the committee, thank you for the 
opportunity to testify today. I am honored to be considered by 
this committee for the position of executive vice president at 
the Overseas Private Investment Corporation.
    After spending most of my career in the private sector, I 
have had the privilege of serving at OPIC for the last 5\1/2\ 
years, first as vice president for policy, then chief of staff, 
and now as chief operating officer. The agency and its 250 
professionals exemplifies efficient and effective government 
delivering results for the American taxpayer and for the 
citizens of the world's most challenging and, often, fastest 
growing emerging markets.
    As the U.S. Government's development finance institution, 
OPIC mobilizes private capital to help solve critical 
development challenges, advancing U.S. foreign policy and 
national security objectives at the same time. Simply put, OPIC 
represents a commonsense solution for development, for U.S. 
national security, and for America's own economic interests.
    With respect to development, OPIC has an outsized impact on 
global development by bringing the stabilizing and sustaining 
force of private investment to some of the world's most 
difficult areas and poorest peoples. Over 40 percent of the 
agency's financial commitments last year were to projects in 
the world's poorest countries, like Rwanda, Cambodia, and 
Haiti. Over 40 percent were to projects in Africa, an agency 
record. And OPIC also catalyzes critical investment flows to 
projects in middle-income countries, where the majority of the 
world's poorest now reside.
    In support of U.S. national security, OPIC has increased 
its lending operations to conflict-affected areas by over 50 
percent during my time with the agency. And today, roughly one-
third of OPIC's investments are in conflict-affected or buffer 
countries, such as Iraq, Afghanistan, Jordan, Georgia, Ukraine, 
and South Sudan.
    Investments made by the U.S. private sector, in partnership 
with OPIC, are critical components of ensuring that we help 
build solid economic foundations in vulnerable regions of 
foreign policy priority. In Ukraine, for example, we are 
working to support U.S. businesses investing in the 
agriculture, energy, and financial services sector. And in 
Jordan, one of our strongest partners in a troubled region, we 
are proud that U.S. companies, supported by OPIC investments 
and insurance, are providing nearly one-fifth of the country's 
power and water supply.
    Finally, OPIC delivers strong results for U.S. taxpayers, 
contributing positively to the Function 150 account for 38 
consecutive years. With 80 percent of global economic growth 
expected to occur in emerging markets over the coming decades, 
OPIC helps U.S. companies gain footholds in fast-growing 
markets by crowding in private-sector investment and enabling 
America's entrepreneurs and business leaders to join the ranks 
of distinguished Americans, like my fellow nominees here today, 
representing the best of U.S. values and ideals.
    Mr. Chairman, Ranking Member Murphy, on any given day OPIC 
has far more demand from American businesses than we can 
answer, far more shared development challenges than we can 
answer, and far more incoming inquiries for investment support 
channeled through U.S. embassies than we can answer.
    Filling the role of executive vice president would allow us 
to respond to this demand in a more efficient and effective way 
at an agency which consistently delivers on its developmental 
mission.
    I thank you again for your consideration of my nomination, 
and I welcome the opportunity to answer any questions you may 
have.
    [The prepared statement of Mr. Morton follows:]

                  Prepared Statement of John E. Morton

    Chairman Risch, Ranking Member Murphy, members of the committee.
    Thank you for the opportunity to testify today. I am John Morton. I 
am honored to be considered by this committee for the position of 
Executive Vice President at the Overseas Private Investment 
Corporation.
    After spending most of my career in the private sector, I have had 
the privilege of serving at OPIC for 5\1/2\ years, first as Vice 
President for Policy, then Chief of Staff, and now as Chief Operating 
Officer.
    The Agency, and its 250 professionals, exemplifies efficient and 
effective Government, delivering results both for the American taxpayer 
and for the citizens of the world's most challenging and, often, 
fastest-growing emerging markets.
    As the U.S. Government's development finance institution, OPIC 
mobilizes private capital to help solve critical development 
challenges, advancing U.S. foreign policy and national security 
objectives at the same time. Simply put, OPIC represents a commonsense 
solution for development, for U.S. national security, and for America's 
own economic interests.
    With respect to development, OPIC has an outsized impact on global 
development by bringing the stabilizing and sustaining force of private 
investment to some of the world's most difficult areas and poorest 
peoples. Over 40 percent of the Agency's financial commitments last 
year were to projects in the world's poorest countries, 
like Rwanda, Cambodia, and Haiti. Over 40 percent was to projects in 
Africa--an Agency record. And OPIC also catalyzes critical investment 
flows to projects to middle-income countries, where the majority of the 
world's poorest now reside.
    In support of U.S. national security, OPIC has increased its 
lending operations to conflict-affected areas by over 50 percent during 
my time with the Agency. And today, roughly one-third of OPIC's 
investments are in conflict-affected or buffer countries such as 
Afghanistan, Jordan, Georgia, Ukraine, and South Sudan.
    Investments made by the U.S. private sector, in partnership with 
OPIC, are critical components of ensuring that we help build solid 
economic foundations in vulnerable regions of foreign policy priority.
    In Ukraine, for example, we are working to support U.S. businesses 
investing in the agriculture, energy, and financial services sectors. 
And in Jordan, one of our strongest partners in a troubled region, we 
are proud that U.S. companies, supported by OPIC investments and 
insurance, are providing nearly one-fifth of the country's power and 
water supply.
    Finally, OPIC delivers strong results for the U.S. taxpayers, 
contributing positively to the Function 150 budget account for 38 
consecutive years.
    With 80 percent of global economic growth expected to occur in 
emerging markets over the coming decades, OPIC helps U.S. companies 
gain footholds in fast growing markets, by ``crowding in'' private 
sector investment--and enabling America's entrepreneurs and business 
leaders to join the ranks of distinguished Americans like my fellow 
nominees today--representing U.S. values and ideals.
    Mr. Chairman, members of the committee, on any given day OPIC has 
far more demand from American businesses than we can answer, far more 
shared development challenges than we can answer, and far more incoming 
inquiries for investment support channeled through U.S. Embassies than 
we can answer.
    Filling the role of Executive Vice President would allow us to 
respond to this demand in a more efficient and effective way at an 
Agency which consistently delivers on its developmental mission.
    I thank you again for your consideration of my nomination and I 
welcome the opportunity to answer any questions you may have.

    Senator Risch. Thank you, Mr. Morton.
    My mistake. I should have invited you to introduce any 
guests you have here, or family.
    Mr. Morton. I do have my wife, Tamar Shapiro, my son, Leo 
Shapiro Morton.
    Senator Risch. All right.
    Mr. Morton. My daughter is on a camping trip today and 
could not be here.
    Senator Risch. She is the lucky one.
    Mr. Morton. And my boss, the president of OPIC, Elizabeth 
Littlefield, is also sitting in the second row.
    Senator Risch. Thank you so much. We appreciate that.
    Mr. Ward, we would like to hear from you on your nomination 
to be Representative to the Organization of Chemical Weapons. 
Would you like to introduce people you have here with you 
today?

  STATEMENT OF KENNETH DAMIAN WARD, NOMINATED TO BE THE U.S. 
   REPRESENTATIVE TO THE ORGANIZATION FOR THE PROHIBITION OF 
                        CHEMICAL WEAPONS

    Mr. Ward. Well, I have no immediate family with me here 
today, but I would like to introduce the former Ambassador to 
the OPCW, Dr. Robert Miklak, who is behind me, and also the 
brother I never had, Robert Kadlik, who is the deputy staff 
director on the SISI Committee. I am honored to have both of 
them here with me today.
    Senator Risch. Thank you.
    Mr. Ward. Mr. Chairman, Ranking Member Senator Murphy, it 
is an honor to appear before you today as President Barack 
Obama's nominee to be the United States Representative to the 
Organization for the Prohibition of Chemical Weapons with the 
rank of Ambassador. I greatly appreciate the trust and 
confidence that President Obama and Secretary of State John 
Kerry have shown in nominating me for this position.
    After decades of negotiation, the Chemical Weapons 
Convention was signed in 1993, and the Convention entered into 
force in 1997. Since then, the international organization 
charged with implementing the Convention, the OPCW, has 
established itself as an effective and respected international 
body. OPCW inspectors have overseen and verified the 
destruction of chemical weapons in Russia, the United States, 
Albania, Libya, Syria, and other states parties. Inspectors 
have conducted thousands of routine inspections in national 
military facilities and commercial enterprises around the world 
to ensure that states parties are abiding by their CWC 
obligations.
    In the fall of 2013, these efforts toward achieving a world 
free of chemical weapons were acknowledged by the Nobel 
committee, and the OPCW was awarded the Peace Prize. Despite 
the historic accomplishments of the Convention and the OPCW, 
chemical weapons continue to be a threat to international peace 
and security.
    The ongoing strife in Syria is a stark and tragic reminder 
that such weapons are not relics of World War I or the cold 
war. On August 21, 2013, the Syrian Government unleashed a 
barrage of rockets filled with the nerve agent sarin against 
opposition-controlled suburbs of Damascus, killing an estimated 
1,400 civilians, many of them children. Three weeks later, 
under international pressure, Syria joined the Chemical Weapons 
Convention.
    Of great concern, there remains compelling evidence that 
Syria continues to use chemical weapons against its own people. 
The factfinding mission of the OPCW, an entity created to 
establish the facts surrounding allegations of the use of toxic 
chemicals as a weapon in Syria, has concluded, with a high 
degree of confidence, that chlorine was used in April and May 
2014 against opposition-controlled villages in northwest Syria. 
The factfinding mission is now investigating additional 
allegations of chemical weapons use in Syria.
    In early August, the U.N. Security Council established the 
joint investigative mechanism for the purpose of identifying 
those individuals, entities, groups, or governments responsible 
for these chemical weapons attacks.
    Of additional concern, an OPCW technical team has raised a 
host of issues calling into question whether Syria has declared 
all of its stocks of chemical weapons and associated munitions. 
The United States shares these concerns. We have assessed that 
Syria has not declared all of the elements of its chemical 
weapons program, and may continue to retain some of its stocks 
of traditional chemical agents and munitions.
    In sum, Syria continues to violate the most fundamental 
obligations of the CWC against possession and use of chemical 
weapons. If confirmed by the Senate, I will make every effort 
to ensure that the people of Syria no longer face the threat of 
chemical weapons at the hands of their government.
    Mr. Chairman, Ranking Member Senator Murphy, the ongoing 
chemical weapons crisis in Syria, as well as the allegations of 
the use of chemical weapons by nonstate actors in both Syria 
and Iraq, is a potent reminder of the essential role of the 
Chemical Weapons Convention and the OPCW in promoting 
international peace and security. In years to come, the world 
will continue to look to the OPCW as the repository of 
technical expertise.
    The OPCW will face many challenges in the years to come to 
achieve the promise of a world filled with chemical weapons--
free--excuse me--free of chemical weapons. We must achieve 
universal membership. We must counter the ongoing threat of 
chemical weapons terrorism. We must prevent the reemergence of 
chemical weapons. If confirmed by the Senate, I will work to 
ensure that the OPCW achieves these goals and remains an 
effective force for promoting international peace.
    I welcome the opportunity to answer any questions you may 
have.
    [The prepared statement of Mr. Ward follows:]

               Prepared Statement of Kenneth Damian Ward

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Barack Obama's nominee to be the United 
States Representative to the Organization for the Prohibition of 
Chemical Weapons (OPCW) with the rank of Ambassador. I greatly 
appreciate the trust and confidence that President Obama and Secretary 
of State John Kerry have shown in nominating me for this position.
    After decades of negotiation, the Chemical Weapons Convention (CWC) 
was signed in 1993 and the Convention entered into force in 1997. Since 
then, the international organization charged with implementing the 
Convention--the OPCW--has established itself as an effective and 
respected international body. OPCW inspectors have overseen and 
verified the destruction of chemical weapons in Russia, the United 
States, Albania, Libya, Syria, and other states parties. Inspectors 
have conducted thousands of routine inspections in national military 
facilities and commercial enterprises around the world to ensure that 
states parties are abiding by their CWC obligations. In the fall of 
2013, these efforts toward achieving a world free of chemical weapons 
were acknowledged by the Nobel committee and the OPCW was awarded the 
Peace Prize.
    Despite the historic accomplishments of the Convention and the 
OPCW, chemical weapons continue to be a threat to international peace 
and security. The ongoing strife in Syria is a stark and tragic 
reminder that such weapons are not relics of World War One or the cold 
war. On August 21, 2013, the Syrian Government unleashed a barrage of 
rockets filled with the nerve agent sarin against an opposition-
controlled suburb of Damascus killing an estimated 1,400 civilians--
many of them children. Three weeks later under international pressure 
Syria joined the Chemical Weapons Convention. Of great concern, there 
remains compelling evidence that the Syria continues to use chemical 
weapons against its own people. The Fact-Finding Mission of the OPCW--
an entity created to establish the facts surrounding allegations of the 
use of toxic chemicals as weapons in Syria--has concluded with a high 
degree of confidence that chlorine was used in April and May 2014 
against opposition-controlled villages in northwest Syria. The Fact-
Finding Mission is now investigating additional allegations of chemical 
weapons use in Syria. In early August, the U.N. Security Council 
established the Joint Investigative Mechanism for the purpose of 
identifying those individuals, entities, groups or governments 
responsible for these chemical weapons attacks.
    Of additional concern, an OPCW technical team has raised a host of 
issues calling into question whether Syria has declared all of its 
stocks of chemical weapons and associated munitions. The United States 
shares these concerns. We have assessed that Syria has not declared all 
the elements of its chemical weapons program and may continue to retain 
some of its stocks of traditional chemical agents and munitions.
    In sum, Syria continues to violate the most fundamental obligations 
of the CWC against possession and use of chemical weapons. If confirmed 
by the Senate, I will make every effort to ensure that the people of 
Syria no longer face the threat of chemical weapons at the hands of 
their government.
    Mr. Chairman and members of the committee, my career in government 
spans over 30 years with 20 of those years dedicated to strengthening 
our security against the threat of chemical and biological weapons. 
Since the beginning of 2011, I have headed the State Department's 
Office of Chemical and Biological Weapons Affairs. In this capacity, I 
have been directly involved in the international initiative to 
dismantle Syria's chemical weapons program and have played a central 
role in efforts to verify the accuracy of Syria's CWC declaration and 
investigate allegations of CW use. Previously, during the 2004-07 
trilateral operation to dismantle Libya's WMD programs, I served as the 
deputy negotiator, working to achieve the removal or destruction of 
nuclear, missile, and chemical materials and equipment.
    Mr. Chairman and members of the committee, the ongoing chemical 
weapons crisis in Syria--as well as the allegations of the use of 
chemical weapons by nonstate actors in both Syria and Iraq--is a potent 
reminder of the essential role of the Chemical Weapons Convention and 
the OPCW in promoting international peace and security. In years to 
come, the world will continue to look to the OPCW as the repository of 
technical expertise on chemical weapons and eliminating the threat they 
pose. The effectiveness the Technical Secretariat has demonstrated in 
recent years has been founded on the efforts of a highly skilled and 
experienced cadre of inspectors.It is essential that the OPCW continue 
to command the expertise and resources it needs to perform this vital 
role. It will face many challenges in the years to come to achieve the 
promise of a world free of chemical weapons. We must achieve universal 
membership; we must counter the ongoing threat of chemical weapons 
terrorism; we must prevent the reemergence of chemical weapons. Indeed, 
we must ensure that the OPCW retains the political will to confront and 
surmount each of these challenges.If confirmed by the Senate, I will 
work to ensure that the OPCW achieves these goals and remains an 
effective force for promoting international peace, security, and a 
world free of the scourge of chemical weapons.
    Thank you. I welcome the opportunity to answer any questions from 
the members of the committee.

    Senator Risch. Mr. Ward, that was very comprehensive. 
Appreciate that. Thank you much.
    Mr. Bodde, you have been nominated to be the Ambassador to 
Libya. Could you enlighten us, please?

       STATEMENT OF HON. PETER WILLIAM BODDE, NOMINATED 
                   TO BE AMBASSADOR TO LIBYA

    Ambassador Bodde. Mr. Chairman, I would like to introduce 
the members of my family who are here today first.
    Senator Risch. Please.
    Ambassador Bodde. I would like to introduce my wife, Tanya, 
who is a retired member of the Foreign Service; my son, 
Christopher, who works at USAID; my dad, who is a retired 
ambassador; and, unfortunately, my daughter cannot be here, 
because she is accompanying her husband on assignment to our 
Embassy in Kuwait.
    Thank you.
    Senator Risch. A lot of service in your family, Mr. Bodde.
    Ambassador Bodde. Yes.
    Chairman Risch, Ranking Member Murphy, members of the 
committee, it is a privilege to appear before you today as the 
President's nominee to be the next United States Ambassador to 
Libya. I am grateful for the trust placed in me by President 
Obama and Secretary Kerry. If confirmed, I look forward to 
working closely with this committee and colleagues from across 
the U.S. Government to promote a strong relationship between 
the United States and Libya during this challenging moment in 
Libyan history.
    Four years after the uprising of the Libyan people led to 
the fall of Qadhafi and his brutal dictatorship, Libyans 
continue to face enormous challenges as they work to establish 
a Government of National Accord and build institutions that are 
inclusive and representative of all Libyans. The Libyan 
political dialogue has required determination and compromise at 
every stage, and the process of political reconciliation in 
Libya will be a long journey.
    The recent October 8th announcement of proposed leadership 
for a Government of National Accord resulting from these Libyan 
negotiations was a welcome step in the process, and we urge all 
parties to endorse the agreement as quickly as possible.
    The rise of ISIL-aligned groups, human smugglers, and 
dramatically reduced oil production demonstrate the immediate 
need for a unified national Libyan Government that can 
effectively partner with the United States and the 
international community to begin the hard work of restoring 
peace and security in Libya.
    Over the course of my career, I have led interagency teams 
in challenging environments, and I understand the difficulties 
and opportunities ahead. My experience as the U.S. Ambassador 
to Nepal during and after the tragic earthquake in April, as 
Assistant Chief of Mission for Assistance in Baghdad, and as 
Deputy Chief of Mission in Pakistan confirm my belief that 
strong interagency coordination and a cohesive country team are 
the foundations of successful United States missions overseas.
    Mr. Chairman, I make it a point to come to the Hill when I 
am back in Washington, and I believe that regular interaction, 
whether at post or in Washington, is critical to our continued 
success. Frank exchanges of accurate information that build 
trust are essential for the Congress to make difficult resource 
and policy choices. If confirmed, I look forward to continuing 
this relationship.
    I have always been deeply conscious of the most important 
duty I have as Chief of Mission: ensuring the safety and 
security of all Americans in Libya, and particularly those 
serving under my leadership. While our mission is no longer 
physically located in Tripoli, balancing safety considerations 
with a deep desire to engage Libyans will be an essential task, 
one for which, if confirmed, I will be responsible and 
accountable.
    Libya has the potential to play a vital role in regional 
security cooperation and trade over the long term. Establishing 
a safe and secure environment must be the first step Libyans 
take to move their country forward. Continuing to support the 
establishment of a stable, prosperous, and democratic Libya is 
consistent with the values and strategic interests of the 
United States. If confirmed, I will work with Libyan partners 
to assist in the establishment of that environment.
    In closing, I want to note that anyone who represents the 
United States abroad has a unique responsibility. More often 
than not, we are the only nation that has the will, the values, 
and the resources to solve problems, help others, and to be a 
positive force for change in our challenged world. Being 
nominated to serve as an Ambassador representing our Nation is, 
in itself, an incredible honor. With the consent of the Senate, 
I look forward to assuming this responsibility again while 
serving as the next U.S. Ambassador to Libya.
    Thank you for this opportunity to appear before you. I look 
forward to answering your questions.
    [The prepared statement of Ambassador Bodde follows:]

              Prepared Statement of Ambassador Peter Bodde

    Chairman Risch, Ranking Member Murphy, members of the committee, it 
is a privilege to appear before you today as the President's nominee to 
be the next United States Ambassador to Libya. I am grateful for the 
trust placed in me by President Obama and Secretary Kerry. If 
confirmed, I look forward to working closely with this committee and 
colleagues from across the U.S. Government to promote a strong 
relationship between the United States and Libya during this 
challenging moment in Libyan history.
    Mr. Chairman, I would like to introduce my family this morning--my 
wife Tanya, a retired career Foreign Service employee, and my son, 
Christopher, are here with me today. My father, Ambassador William 
Bodde, is also here with me today. Thirty-six years ago, I sat where he 
is when he appeared before the late Senator Paul Tsongas during my 
dad's first confirmation hearing prior to becoming Ambassador to Fiji.
    Four years after the uprising of the Libyan people led to the fall 
of Qadhafi and his brutal dictatorship, Libyans continue to face 
enormous challenges as they work to establish a Government of National 
Accord (GNA) and build institutions that are inclusive and 
representative of all Libyans. The Libyan political dialogue has 
required determination and compromise at every stage, and the process 
of political reconciliation in Libya will be a long journey. The recent 
October 8 announcement of proposed leadership for a Government of 
National Accord resulting from these Libyan negotiations was a welcome 
step in the process, and we urge all parties to endorse the agreement 
as quickly as possible.
    The rise of ISIL-aligned groups and other extremist organizations, 
the coercive power of militias over Libyan civilians and government 
institutions, the consistent harassment and targeting of civil society 
activists, and dramatically reduced oil production demonstrate the 
immediate need for a unified national Libyan Government that can 
effectively partner with the United States and the international 
community to begin the hard work of restoring peace and security in 
Libya.
    In 2011, the Libyan people summoned the courage to stand up to a 
brutal dictator after 42 years of manipulative and violent rule. The 
United States supported Libyans then, and we must stand by our Libyan 
friends now. With the support of Congress we have allocated resources 
to enable the United States to support Libya's democratic transition, 
when conditions allow. We will continue to work with our international 
partners and the U.N. Support Mission in Libya (UNSMIL) to focus on the 
key areas that will enable a Government of National Accord (GNA) to 
respond to the urgent needs of the Libyan people. It will be incumbent 
on members of the international community and regional partners to 
assist a new Libyan unity government in its early days while building 
capacity so Libyans can sustainably take on the tough work of border 
security, counterterrorism, and effective governance in the future.
    In the absence of an effective central government that can secure 
Libyan territory, violent extremist groups have proliferated. Terrorist 
groups operate freely in Dernah and Sirte and have mounted attacks in 
Tripoli and other Libyan cities. Parts of southern Libya are plagued by 
tribal fighting, banditry and general lawlessness. Al Qaeda in the 
Islamic Maghreb, Ansar al-Sharia elements, and Islamic State of Iraq 
and the Levant (ISIL)-aligned groups have all been operating in Libya. 
These terrorist groups have raided unprotected stocks of weapons, using 
them in Libya and smuggling them across the region. These groups have 
also attacked oil facilities and vital economic infrastructure in an 
effort to undermine a political solution to the instability that allows 
them to thrive. The presence of ISIL-aligned groups challenges the 
stability of Libya and our partners in the region and Europe, and is a 
very real threat to U.S. national security. If confirmed, I will do 
everything in my power to coordinate resources and strategies across 
the U.S. Government to respond to the threat ISIL and other terrorists 
pose to Libya, the region, and our U.S. national security interests.
    Human smugglers have also capitalized on the absence of effective 
law enforcement and Libya's porous borders. In 2015 alone, over 120,000 
people have attempted to enter Europe by crossing through Libyan soil, 
and nearly 3,000 of them have perished in that attempt.
    Peace is not just a political imperative, but an economic one as 
well. In 2011, Libyans exported 1.6 million barrels per day of oil. 
Today, that number stands at just 430,000, below what a Government of 
National Accord will need to cover current spending, much less the 
reconstruction and development that the country will require to recover 
from this period of strife. Getting back to historic production levels 
will be critical to rebuilding Libya's economy, achieving national 
reconciliation, and equipping a Government of National Accord for the 
many challenges Libya faces.
    Over the course of my career, I have led interagency teams in 
challenging environments, and I understand the difficulties and 
opportunities ahead. My experience as U.S. Ambassador to Nepal during 
and after the tragic earthquake in April, as Assistant Chief of Mission 
for Assistance in Baghdad, and as Deputy Chief of Mission in Pakistan 
confirmed my belief that strong interagency coordination and a cohesive 
Country Team are the foundations of successful United States missions 
overseas. Chairman Risch, I make it a point to come to the Hill when I 
am back in Washington and I believe that regular interaction--whether 
at post or in Washington--is critical to our continued success. Frank 
exchanges of accurate information that build trust are essential for 
the Congress to make difficult resource and policy choices. If 
confirmed, I look forward to continuing this relationship.
    I have always been deeply conscious of the most important duty I 
have as a Chief of Mission--ensuring the safety and security of all 
Americans in Libya, in particular those serving under my leadership. 
While our mission is no longer physically located in Tripoli, balancing 
safety considerations with a deep desire to engage Libyans will be an 
essential task, one for which, if confirmed, I will be responsible and 
accountable.
    Libya has the potential to play a vital role in regional security 
cooperation and trade over the long term. Establishing a safe and 
secure environment must be the first step Libyans take to move their 
country forward. Continuing to support the establishment of a stable, 
prosperous, and democratic Libya is consistent with the values and 
strategic interest of the United States. If confirmed, I will work with 
Libyan partners to assist in the establishment of that environment.
    In closing, I want to note that anyone who represents the United 
States abroad has a unique responsibility. More often than not, we are 
the only nation that has the will, the values, and the resources to 
solve problems, help others, and to be a positive force for change in 
our challenged world. Being nominated to serve as an Ambassador 
representing our Nation is in itself an incredible honor. With the 
consent of the Senate, I look forward to assuming this responsibility 
while serving as the next U.S. Ambassador to Libya.
    Thank you for this opportunity to appear before you. I look forward 
to answering your questions.

    Senator Risch. Thank you very much, Mr. Bodde.
    Mr. Sievers, you have been nominated the Ambassador to 
Oman. And, please, you have the floor.

STATEMENT OF MARC JONATHAN SIEVERS, NOMINATED TO BE AMBASSADOR 
                    TO THE SULTANATE OF OMAN

    Mr. Sievers. Thank you, Mr. Chairman.
    If I may, I would like to introduce my family members----
    Senator Risch. Please.
    Mr. Sievers [continuing]. Who are here today: my wife, 
Michelle Huda Rafael; our son, Samuel; my son, David; and my 
daughter, Miriam. And I am very grateful for their support and 
their attendance at this hearing.
    Senator Risch. Thank you.
    Mr. Sievers. Chairman Risch, Ranking Member Murphy, and 
members of the committee, I am honored to appear before you as 
President Obama's nominee to serve as Ambassador to the 
Sultanate of Oman.
    I am deeply grateful to President Obama and Secretary Kerry 
for the trust they have placed in me, and, if confirmed, I look 
forward to working closely with you and other Members of 
Congress to advance the interests of the United States in Oman.
    Mr. Chairman, I have spent much of my 34-year Foreign 
Service career working in the Middle East. If confirmed as U.S. 
Ambassador to Oman, my highest priority will be protecting the 
dedicated men and women at our mission, as well as all 
Americans living in and visiting Oman. I will work with our 
Omani partners to ensure that American businesses realize the 
full benefits of the U.S.-Oman Free Trade Agreement. I will 
engage with a wide range of Omani citizens so that Oman may 
continue to make strides in establishing an independent civil 
society. Rest assured, I will employ the full range of 
diplomatic tools to deepen our cooperation with Oman on 
counterterrorism and counterpiracy issues.
    In recent years, Oman has demonstrated the value of its 
relationship to the United States by helping to facilitate the 
nuclear negotiations with Iran, securing the release of 
American detainees in Yemen and hikers held by Iran, and by 
assisting the evacuation of American Government personnel from 
Yemen.
    Overlooking the Strait of Hormuz, Oman works closely with 
the United States, and especially the United States Navy, to 
promote freedom of navigation in a region through which 
approximately 30 percent of seaborne global oil exports flow. 
The United States and Oman maintain excellent security 
cooperation to ensure that the Strait of Hormuz remains open to 
international trade.
    Since the implementation of the United States-Oman Free 
Trade Agreement in 2009, U.S. private industry has received 
broad access to the rapidly developing Omani market. The United 
States held a billion-dollar trade surplus with Oman in 2014. 
If confirmed, I will work to ensure American private industry 
enjoys free access to an Omani market eager to purchase 
American goods and services.
    Sultan Qaboos has gradually increased the level of 
representation Omani citizens hold in government. If confirmed, 
I will support the efforts of the people and government of Oman 
to establish a more inclusive and transparent government and to 
strengthen civil society.
    Finally, I would like to once more express my appreciation 
for this opportunity to appear before the committee today. If 
confirmed, I look forward to welcoming Members of Congress and 
congressional staff to Oman.
    I have served in a number of war and conflict zones during 
my career, and I can assure the committee I do not take lightly 
the responsibility an Ambassador holds to protect the men and 
women serving our country overseas. If confirmed, my highest 
priority will always be the safety and security of every 
American in Oman, as well as the advancement of our national 
interests, and I pledge to carry out these duties to the best 
of my ability.
    I welcome the opportunity to answer any questions you might 
have.
    Thank you.
    [The prepared statement of Mr. Sievers follows:]

                 Prepared Statement of Marc J. Sievers

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, I am honored to appear before you as President Obama's 
nominee to serve as Ambassador to the Sultanate of Oman. I am deeply 
grateful to President Obama and Secretary Kerry for the trust they have 
placed in me, and if confirmed, I look forward to working closely with 
you and other Members of Congress to advance the interests of the 
United States in Oman. I would like to pause for a moment to recognize 
my wife, Michelle Huda Raphael, our son, Samuel, my daughter, Miriam, 
and my son, David, who are here with me today. They have provided 
unwavering support throughout my career and I am very grateful for 
their love and understanding.
    Mr. Chairman, I have spent much of my 34-year Foreign Service 
career working in the Middle East, including assignments in Iraq, Saudi 
Arabia, Egypt, and Israel. My previous assignments have provided me 
with an extensive background in economic and counterterrorism issues 
that are essential to our partnership with Oman, and a deep 
appreciation for the importance of political and economic reform to 
long-term stability. If confirmed as U.S. Ambassador to Oman, my 
highest priority will be protecting the safety and security of the 
dedicated men and women at our mission, as well as all Americans living 
in and visiting Oman. I will work with our Omani partners to ensure 
that American businesses realize the full benefits of the U.S.-Oman 
Free Trade Agreement. I will engage with a wide range of Omani citizens 
so that Oman may continue to make strides in establishing an 
independent civil society and preventing trafficking in persons. Rest 
assured, I will employ the full range of diplomatic tools to deepen our 
cooperation with Oman on counterterrorism, maritime security, and 
counterpiracy issues.
    The United States and Oman share a long history of friendship and 
trade. The bilateral relationship was formalized in an 1833 Treaty of 
Amity and Commerce. Oman was the first Arab Gulf State to host the 
United States at its military facilities, and Oman has supported United 
States Forces during almost every U.S. military operation in the region 
since 1980.
    Oman plays a helpful role in multilateral diplomacy. As a member of 
the Gulf Cooperation Council, the Arab League, and the United Nations, 
Oman maintains close ties with American allies in the region. Oman has 
helped advance the interests of the United States by serving as a 
mediator with other countries in the region. In recent years, Oman has 
demonstrated the value of its relationship to the United States by 
helping to facilitate nuclear negotiations with Iran, securing the 
release of American detainees in Yemen, and the young American hikers 
held by Iran, and finally, by assisting the evacuation of American 
Government personnel from Yemen. Since 1997, Oman has hosted the Middle 
East Desalination Research Center, an institution that brings Israelis 
and Arabs together to address regional water challenges through science 
and knowledge-sharing.
    Bordering Yemen, Saudi Arabia, and the UAE, and overlooking the 
Strait of Hormuz, Oman collaborates with the United States to promote 
security and freedom of navigation in a region through which 
approximately 30 percent of seaborne global oil exports flow. Oman 
provided critical logistical support during both Operation Iraqi 
Freedom and Operation Enduring Freedom. The United States maintains 
excellent security cooperation on counterterrorism, countersmuggling, 
and counterpiracy to ensure the Strait of Hormuz remains open to 
international trade. As the situation in Yemen has deteriorated, the 
United States and Oman have worked together to prevent destabilizing 
nonstate actors such as the Islamic State in Iraq and the Levant and Al 
Qaeda in the Arabian Peninsula from exploiting Yemen's porous border 
and coastal areas. If confirmed, my priority will remain the safety and 
security of Americans. Maintaining a strong relationship with Oman on 
border and maritime security and counterterrorism will keep Americans 
in Oman and the United States safer.
    Economic cooperation between the United States and Oman continues 
to grow. Since the implementation of the United States-Oman Free Trade 
Agreement in 2009, U.S. private industry has received broad access to 
the rapidly developing Omani market. The United States held a billion 
dollar trade surplus with Oman in 2014, and economic cooperation 
continues to expand. American businesses such as General Cable and 
GlassPoint Solar have benefited from access to a diversifying Omani 
economy. If confirmed, I will work to ensure American private industry 
enjoys free access to an Omani market eager to purchase American goods 
and services, and benefit from the world's best quality, customer 
service, and corporate social responsibility programs.
    Oman has made dramatic gains since emerging as a modern state 
shortly after Sultan Qaboos bin Said came to power in 1970. The 2010 
U.N. Human Development Report listed Oman first of 135 countries in 
human development from 1970 to 2010. Omanis have benefited from 
dramatic increases in access to education, quality health care, and 
improved living standards. As Oman moves to further diversify its 
economy in the coming decades, American private industry is well-suited 
to provide the technical expertise necessary to expand the scope of 
prosperity in the United States and Oman.
    Oman has increased the number of opportunities available to women 
in recent years. Omani women serve in political offices and have held 
Cabinet- level positions in government. Oman was the first Arab State 
to appoint a woman, the Hon. Hunaina al-Mughairy, as Ambassador to the 
United States. Omani women now constitute over 30 percent of the 
workforce. Oman should maximize the role of women as it builds a 
modern, diversified economy. If confirmed, I will encourage the 
development of more opportunities for women in Omani private 
enterprise, government, and civil society. I will also prioritize our 
efforts to combat and prevent human trafficking. Human trafficking 
violates fundamental rights and corrodes a society from within. Oman is 
primarily a destination and migrant country for men and women who are 
subjected to forced labor, but Oman is working hard to improve its 
response to human trafficking. If confirmed, I will partner with Oman 
to improve its record by prosecuting and convicting human trafficking 
offenders, identifying and protecting trafficking victims among 
vulnerable populations, and allowing broader victim access to 
government shelter care.
    Sultan Qaboos has gradually increased the level of representation 
Omani citizens hold in government. Following Arab Spring-related 
protests in 2011, Sultan Qaboos empowered the popularly elected portion 
of the legislature to draft laws. He also appointed members of the 
elected Council into Cabinet positions. If confirmed, I will support 
the efforts of the people and government of Oman to establish a more 
inclusive and transparent government and strengthen civil society.
    Approximately 50,000 American tourists visited Oman last year. Oman 
also serves as a model for tolerance and peaceful coexistence in the 
region. If confirmed, I look forward to welcoming members of Congress 
and congressional staff to Oman. Oman is an important partner for the 
United States in the region, and I hope to have the opportunity to work 
to expand the scope of our cooperation.
    Finally, I would like to once more express my appreciation for this 
opportunity to appear before the committee today. I have served in a 
number of war and conflict zones during my career and I can assure the 
committee I do not take lightly the responsibility an Ambassador holds 
to protect the men and women serving our country overseas. If 
confirmed, my highest priority will always be the safety and security 
of every American in Oman, as well as the advancement of our national 
interests, and I pledge to carry out these duties to the best of my 
ability.
    I welcome the opportunity to answer any questions you might have. 
Thank you.

    Senator Risch. Thank you very much, Mr. Sievers.
    Ms. Millard, you have been nominated to be Ambassador to 
Tajikistan, and the floor is yours for introductions.

      STATEMENT OF ELISABETH I. MILLARD, NOMINATED TO BE 
            AMBASSADOR TO THE REPUBLIC OF TAJIKISTAN

    Ms. Millard. Thank you, Mr. Chairman.
    In the interest of time, I will summarize my statement, but 
ask that the full statement be submitted for the record.
    Senator Risch. Certainly.
    Ms. Millard. And I would like to say, of my five children, 
my oldest daughter, Charlotte, and my youngest son, Richard, 
were unable to come today, but the other three are here with 
their spouses: my daughter, Olivia; my daughter, Sasha; and my 
son, James. And we also have Alex, age 4, who is my 
granddaughter, here today.
    Senator Risch. Thank you so much.
    Ms. Millard. Mr. Chairman, Ranking Member Murphy, it is a 
great honor and privilege to appear before you today as the 
United States Ambassador-designate to the Republic of 
Tajikistan. I deeply appreciate the opportunity to testify this 
afternoon, and I am humbled by the confidence President Obama 
and Secretary Kerry have placed in me. If confirmed, I look 
forward to working with this committee and all Members of 
Congress to advance the interests of the United States in 
Tajikistan.
    I would like to recognize the members of my family, without 
whom my 23-year career in the Foreign Service would not have 
been possible. Above all, my husband, Vaughan, who retired 
after serving in the Navy for 30 years and became my most 
enthusiastic and steadfast teammate during our tours in Prague, 
Copenhagen, New Delhi, Kathmandu, Casablanca, and Astana. 
Vaughan, tragically, died after a brief illness last year, but 
he knew this posting to Tajikistan was a possibility, and was 
excited at the prospect. And our five children and six 
grandchildren are a testament to our partnership.
    Throughout my career, I have focused on ensuring the 
security and safety of American citizens and advancing the 
interests and values of the United States and the American 
people. Mr. Chairman, if confirmed, I will bring the same 
dedication to our Embassy in Dushanbe.
    Tajikistan is a challenging post in a dynamic region. Per 
capita, it is in the poorest quarter of countries in the world. 
It has a porous 800-mile-long border with Afghanistan. And 
problems like illegal narcotics trade, terrorism, and violent 
extremism in the region are deeply concerning. If confirmed, I 
will work to strengthen our partnership with Tajikistan to 
address these serious challenges.
    Tajikistan, given its difficult neighborhood, must maintain 
its security and stability, goals which the United States 
strongly supports. But, the security, stability, and prosperity 
that Tajikistan seeks can only come with a strong commitment to 
improving human rights and governance, respect for the rule of 
law, and protection and promotion of its people's rights and 
freedoms. These are critical components of security and 
stability for any country. If confirmed, I will encourage the 
government to promote and protect the space for civil society 
and for international and domestic nongovernment organizations 
to register and function freely.
    Being an American Ambassador is not only a great honor, but 
also a great responsibility. If confirmed, I will endeavor to 
be a good steward of the American people's trust and property, 
and a caring leader for my Embassy colleagues, and a faithful 
representative of our values and our interests. I will also 
ensure that our missions continues to provide U.S. citizens 
residing in or visiting Tajikistan the highest quality of 
services and our steadfast protection in times of need.
    Communication and trust build the best relationships. This 
applies not only to our engagement with foreign governments and 
societies, but also to engagement with Congress. If confirmed, 
I will always be available to this committee, its members and 
staff, to discuss the--and work with you in pursuit of our 
national interests in Tajikistan.
    Again, I thank you for this opportunity, and I look forward 
to your questions.
    [The prepared statement of Ms. Millard follows:]

                Prepared Statement of Elisabeth Millard

    Mr. Chairman, Ranking Member Murphy, and distinguished members of 
the committee, it is a great honor and privilege to appear before you 
today as the United States Ambassador-designate to the Republic of 
Tajikistan. I deeply appreciate the opportunity to testify this 
afternoon, and am humbled by the confidence President Obama and 
Secretary Kerry have placed in me. If confirmed, I look forward to 
working with this committee and all members of Congress to advance the 
interests of the United States in Tajikistan.
    For 23 years, I have had the honor to serve as a career Foreign 
Service officer, and my work has been defined by a strong commitment to 
advancing U.S. interests, including universal values of democracy, rule 
of law, and the protection of human rights and dignity.
    Having served twice as Deputy Chief of Mission and once as 
Principal Officer, if confirmed, I will bring years of substantive and 
management experience to the position of Ambassador to Tajikistan. I 
have served in Central Asia and covered that area from the Washington 
perspective as well, and these experiences have prepared me for the 
unique demands of the region.
    I successfully led interagency teams in Nepal, Morocco, and 
Kazakhstan to further U.S. priorities such as advancing good governance 
and democracy, strengthening counterterrorism efforts, and promoting 
American business interests. In these and all my previous assignments, 
my top priorities were to ensure the security and safety of American 
citizens and to advance the interests and values of the United States 
and the American people. Mr. Chairman, if confirmed, I will bring the 
same dedication to our Embassy in Dushanbe.
    Tajikistan is a challenging post in a dynamic region. Per capita, 
it is in the poorest quarter of countries in the world and its GDP is 
the lowest in Central Asia. Youth under 24 are 53 percent of 
Tajikistan's population--a statistic that is only predicted to grow. 
Tajikistan has a porous 800-mile-long border with Afghanistan, and 
problems like the illegal narcotics trade, trafficking in persons, 
terrorism and violent extremism in the region are deeply concerning. If 
confirmed, I will work to strengthen our partnership with Tajikistan to 
address these serious challenges.
    Tajikistan is a critical partner in the administration's New Silk 
Road initiative. Through electricity grids and transit corridors, 
Tajikistan links Central Asia with South Asia and beyond. With almost 
half of its national income reliant on remittances from migrant 
workers, Tajikistan must diversify its economy. But Tajikistan cannot 
succeed on its own. If confirmed, I will encourage Tajikistan to 
continue building energy, economic, infrastructure and people-to-people 
connections with all its neighbors.
    Tajikistan, given the threats it faces, is fully entitled to take 
steps to maintain its security. For that reason, the United States has 
supported Tajikistan's security in a number of ways over the years, 
including by providing training and equipment to its military and 
border security forces, police and counternarcotics units. A stable and 
prosperous Tajikistan is squarely in U.S. national interests.
    But we also recognize that the long-term security, stability, and 
prosperity that Tajikistan seeks can only come through a strong 
commitment to improving governance, respect for rule of law, and 
protection of its people's rights and freedoms. Without these essential 
elements, stability will prove elusive in any country.
    If confirmed, I will seek to increase our positive engagement with 
the government and people of Tajikistan, not only with respect to our 
shared interest in stability and economic prosperity but also on other 
important issues such as preventing arbitrary arrests, addressing 
allegations of torture and mistreatment in prisons, and allowing the 
free practice of all faiths by all people, regardless of gender or age. 
I will also encourage the government to promote and protect space for 
civil society and for international and domestic nongovernmental 
organizations to register and function freely.
    Direct engagement with the people of Tajikistan will also be a 
priority for me, if I am confirmed. People-to-people contact remains at 
the core of our diplomatic efforts. If confirmed, I look forward to 
interacting with people throughout Tajikistan and strengthening ties 
between the American and Tajik people. Public diplomacy efforts, 
outreach, and educational exchanges promote mutual understanding and 
foster deeper bilateral ties.
    Being an American Ambassador is not only a great honor but also a 
great responsibility. If confirmed, I will endeavor to be a good 
steward of the American people's trust and property, a caring leader 
for my Embassy colleagues, and a faithful representative of our values 
and our interests. I will also ensure that our mission continues to 
provide U.S. citizens residing in or visiting Tajikistan the highest 
quality services and our steadfast protection in times of need.
    Communication and trust build the best relationships. This applies 
not only to engagement with foreign governments and societies, but also 
to engagement with Congress. If confirmed, I will always be available 
to this committee, its members and staff to discuss and work with you 
in pursuit of our national interests in Tajikistan.
    Again, I thank you for this opportunity, and look forward to your 
questions.

    Senator Risch. Thank you very much, Ms. Millard.
    I am going to go through and ask questions of each of you, 
because I have individual questions, and I think there are 
matters that you have on your mind that are of interest to us 
and you can probably enlighten us on.
    And I want to start, Mr. Morton, with you. You are 
undoubtedly aware of the fact that a number of us here in the 
Senate wrote a letter raising concerns about a conflict of 
interest on a director, and--are you familiar with the letter 
that I am talking about, the response that was made to it?
    Mr. Morton. I believe I am, sir, yes.
    Senator Risch. What--first of all, do you think that the 
concerns that we--we were concerned not only about a conflict 
of interest, but an apparent conflict of interest. And, you 
know, we, as Americans, as we go around the world, try to 
persuade people that the only way society can prosper is if, 
indeed, you get rid of corruption and you get rid of any type 
of undue influence, and, for that matter, the appearance of it. 
So, we were concerned not only about what appeared to be a 
conflict of interest, and could have been a conflict of 
interest, but also the appearance of it. What are your thoughts 
on that?
    Mr. Morton. Well, Senator, thank you for the question.
    I believe, when we looked into the matter that was raised 
by you and several other Senators, we were very comfortable 
with the arrangement that OPIC had supported in this case, and 
I believe that the director in question had recused himself of 
all relevant matters during the course of his time on the--
serving on the board. So, I--we took a close look at it and 
felt that we had followed both process-related matters well, 
but also we had stayed on the proper side of the perception 
issue. I would be happy to follow up in more detail with a 
further conversation if that--if our response was not to your 
satisfaction.
    Senator Risch. Well, I think probably a little more detail 
would not hurt. I fully appreciate that the person in question 
recused himself from the actual vote on something, but, you 
know, again, the appearance is very difficult to shake under 
these circumstances, because obviously, if you are a codirector 
with other directors, you have influence over them, you have 
access to them that others do not. And so, I would be 
interested--you do not need to do this now, you can take the 
question for the record, but I would appreciate some followup 
on it, because, as I say, that really does not resolve the 
issue of the appearance versus the actual conflict.
    Mr. Morton. Senator, I would be happy to get back to you. 
And I would say that, you know, with a portfolio of 600 
projects across 105 countries around the world, we are 
constantly looking at investments that have complex structures, 
boards of directors, governance structures that we do very, 
very careful due diligence on to avoid the very issue that you 
are raising here. So, we take these issues quite seriously, and 
I would be happy to follow up with you in more detail.
    Senator Risch. Thank you, Mr. Morton.
    Mr. Ward, you have a responsibility that is enormous, 
really, when you are dealing with the product or the material 
that you are dealing with. We are seeing some open-source 
reporting that mustard gas is being used in Syria. Can you 
enlighten us any on that? Realizing we are not in a classified 
setting, but is there anything you can say in an open-source 
sort of fashion that would talk about that?
    Mr. Ward. We certainly have had concerns, for years, that 
ISIL has been seeking such weapons. And there have been 
allegations and reports that they have actually used these 
types of weapons. It is something the United States is looking 
at very seriously. Because it involves ISIL, as you know, Mr. 
Chairman, there is an intelligence dimension to all of this.
    But, something I can bring to the attention to the 
committee is that the Organization for the Prohibition of 
Chemical Weapons, its factfinding mission, one of the missions 
has focused on the allegations that such chemicals were used in 
August. And we expect, by the end of this week, for that 
factfinding mission to issue a public report on the information 
it has acquired on this subject. It will not address the issue 
of attribution. The mandate of the group does not extend to 
assigning responsibility. But, it will seek to either confirm 
or refute the allegations that these chemicals will be used. 
And I think you will find their report to be a very helpful 
open-source document.
    If you have seen the previous report that was done by the 
factfinding mission on the April-May 2014 incidents, you know, 
it is hundreds of pages long, very detailed information based 
on interviews and the like. And I know that some of your staff 
colleagues have found it to be very, very helpful as an open-
source document. Hopefully, by the end of this week, that will 
be issued and be able to provide you with a much more open type 
of access that would not involve classified information.
    Senator Risch. Thank you, Mr. Ward. I think everyone is 
aware, because of the reporting of the use of chemical weapons 
in Syria--after Syria, would be the next country that you would 
be most concerned about? Obviously, I think--would you agree 
with me, Syria would be at the top of the list of concern in 
today's world? Am I right or wrong on that?
    Mr. Ward. Absolutely. This is a country that we believe has 
not fulfilled its obligations to declare and destroy all of its 
chemical weapons, and there is mounting evidence that it is 
been using chemical weapons against its own citizens.
    Senator Risch. And so, what country would you go to after 
that? Is there anybody close to that, or do you kind of drop 
down the scale quite a ways?
    Mr. Ward. Well, you know, what is interesting is, you know, 
we have concerns about some countries, which are reported in 
our classified compliance report, but, you know, use of 
chemical weapons by countries is something that really has not 
taken place since World War II. The real immediate threat of 
use, versus the concerns about countries possessing chemical 
weapons, is nonstate actors. You know, we wonder if a new era 
of chemical terrorism has come along. And it will be 
interesting to see if these allegations that ISIL has been 
using chemical weapons turn out to be true, because we may be 
worrying much more about terrorists who, when they acquire a 
chemical weapon, immediately use it, versus countries of 
concern that acquire a chemical weapons capability, but it sits 
on the shelf and never becomes an immediate threat to the world 
community.
    So, Senator, I worry most about nonstate actors, and I hope 
we can put that genie back in the bottle and that we are not 
seeing a new era now of chemical terrorism.
    Senator Risch. Given the lack of moral turpitude of the 
people who are doing this in Syria, I would say that I am not 
very optimistic that some type of moral obligation would drive 
their decisionmaking.
    Let me ask this. As far as--you said no country had used 
it, no state actors had used it, since World War II. Are you 
excepting Syria, given the use near Damascus?
    Mr. Ward. Actually, no, I am. And let me correct myself. I 
am forgetting the obvious example of the Iran-Iraq War and the 
allegations that Iraq, and then later Iran, exchanged large 
amounts of chemical weapons between 1980 and 1988. Forgive my 
historical lapse.
    Senator Risch. Appreciate that.
    What--do you feel--does your organization feel like they 
have a--at least somewhat of a decent handle on how much 
chemical--what is the quantity of chemical weapons that are 
left in Syria after the supposed removal of the chemical 
weapons?
    Mr. Ward. They do not, Mr. Chairman. But, they believe that 
the answers that the Syrian Government has provided about what 
happened to chemicals that they allegedly destroyed a few years 
ago--they just cannot document anything, and there are grave 
suspicions that they have not come clean about all their 
capabilities. We do believe the bulk of their program was 
declared, but there remain very serious suspicions that a 
residual chemical weapon capability has been maintained by 
Syria.
    And, thankfully, the organization established a very 
dedicated group of experts to focus on this issue. Just a few 
weeks ago, they reported that they have serious concerns about 
the veracity of Syria's declaration with respect to chemical 
agents, to the munitions that would deliver them and the 
facilities that were involved in research and development and 
production. So, the international organization has clearly 
identified a serious problem. Unfortunately, they do not know 
where the hidden weapons are, but it is important that they put 
an international spotlight on it. The last thing any of us 
wants, and most especially myself, is for Syria to hold itself 
out as a member in good standing of the Chemical Weapons 
Convention. They are not, Senator.
    Senator Risch. I appreciate that.
    Can you comment at all on the transfer--obviously, not 
voluntarily--from the Syrian Government to ISIS or ISIL or 
Daesh, whatever you want to call it?
    Mr. Ward. In a classified context, that could be addressed.
    Senator Risch. Thank you.
    Mr. Ward. But, let me just say that--let us not think that 
there was any deliberate transfer from--by the--from the Assad 
regime to ISIL. These are enemies. Obviously, any acquisition 
that took place was not intended. But, in a classified context, 
be happy to provide more information, Senator.
    Senator Risch. Mr. Bodde, we all know that the--Libya is 
attempting to form a government. Can you enlighten us on the 
status of that?
    Ambassador Bodde. Yes. Mr. Chairman, we have been making, 
with our international partners and our regional partners in 
the area, some progress over the last few weeks to establish a 
Government of National Accord. We were very hopeful, on October 
8, as I mentioned in my statement, that, when the Special 
Representative of the U.N. announced the possible officers of 
the new government, that that would move forward quickly. It 
has not, but we are still hopeful that this is the direction it 
will take. We are not there yet. All of the regional partners, 
our international partners, there is still dialogue going on. 
My counterpart, Special Representative Jonathan Winer, was just 
out in the region doing outreach on this stuff. But, our goal 
is that they will work towards establishing this Government of 
National Accord.
    We feel it is critical, because, without an inclusive 
government that brings in all the parties, as many parties as 
possible, we do not see that substantial progress can be made.
    Senator Risch. What is your personal assessment of the 
prognosis of that? Could they succeed?
    Ambassador Bodde. I think it has the potential to succeed, 
but it is going to be a very difficult road. And, like 
everything, even reaching its--reaching agreement--my own 
sense, Senator, is that that will be easier than 
implementation. But, that is why I am going there.
    Senator Risch. Mr. Sievers, regarding Oman, you did not 
mention, or refer to in your opening statement, succession. So, 
could you talk about that for a minute? And your concerns in 
that regard, if you have any.
    Mr. Sievers. Yes, Senator, thank you very much.
    Succession obviously is a very important question. The 
Sultan has been in power since 1970. He has established most of 
the institutions that currently exist in Oman. He is widely 
viewed as kind of the father of the modern Omani state. And due 
to his health, there is certainly the potential that he could 
leave the scene in the near future. There is a mechanism in 
place. There is something called the Ruling Family Council that 
would meet if the position became vacant suddenly. And they are 
to select a successor, because the Sultan has no children of 
his own. Should they fail to reach a consensus on who that 
individual would be, there is a sealed letter from the Sultan 
to the Council that would be opened in the event that they do 
not reach agreement among themselves.
    So, I think we are--I am pretty confident that they will 
manage this process, but I do acknowledge that it is untested 
and it could pose a challenge for them.
    Senator Risch. Thank you very much.
    Mr. Sievers. You are welcome, sir.
    Senator Risch. Finally, Ms. Millard, I think one of the 
things, for those of us that serve on both Foreign Relations 
and the Intelligence Committee, is the flow of fighters from 
Tajikistan to ISIS. What can you tell us about that and what--
you know, what is the prognosis of stemming that?
    Ms. Millard. Mr. Chairman, it is, indeed, a worrying 
phenomenon. The number that the Tajiks have given to us is 
about 600, as of now. And if confirmed, I would be focusing on 
this important issue, and to deepen our already robust 
relationship with the Tajik government to address issues such 
as this one.
    Senator Risch. Do the Tajiks have any system in place to do 
anything about this?
    Ms. Millard. My understanding is that some of the 
recruitment is actually happening in Russia. The guest 
workers--as you may know, many, many young Tajiks actually are 
guest workers in Russia. And so, the issue--the problem is 
mostly happening in Russia. But, as far as what the Tajiks 
themselves are doing within Tajikistan, I will be looking into 
that, and hopefully become smarter on that once, if confirmed, 
I get to Dushanbe.
    Senator Risch. Thank you, Ms. Millard.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    As the father of a 7-year-old and a 3-year-old, let me 
remark on how remarkably well behaved----
    [Laughter.]
    Senator Murphy [continuing]. The youngsters are, that are 
here with us. Frankly, they will do more credit to the United 
States in these new roles than their parents, given their 
disposition.
    Thank you all for being here today. Let me sort of go down 
the row in the same order to let everybody catch their breath.
    Mr. Morton, you and I had the chance to talk about this a 
little bit, but in open session. You know, I am intrigued by 
the messages that we send as China stands up the AIIB, 
providing new access to capital, new pathways to alliances and 
partnerships with countries all around the world, and we sit 
here today still with the inability to simply reauthorize the 
Eximbank. Tell us a little bit about what this new Asian 
development bank means for the United States, what this new 
competition may mean for the work that you do, and 
recommendations for how we should be thinking about it. It sort 
of bewilders me that we do not understand that the military is 
not the only way that you project your power as a nation 
abroad, that, these days especially, your economic reach 
matters as much, if not more, than your military reach. And you 
have limited resources. But, tell us what we should be learning 
from what the Chinese are doing.
    Mr. Morton. Thank you for the question.
    You know, I think the creation of the AIIB is only the 
latest in a longer series of developments that have occurred 
within the development-finance arena over the last decades. 
Just briefly, for context, you know, when OPIC was carved out 
of USAID 40 years ago, the vast majority of U.S. flows overseas 
was in the form of official development aid or grants--seven to 
one, grants to foreign direct investment. Now it is the exact 
opposite--10 times more U.S. foreign direct investment flows 
out than does official development assistance. So, the 
interaction that the U.S. economy and the U.S. nation is having 
with developing countries is very much driven now by foreign 
direct investment and by the business ambassadors that are our 
businesses and our companies that are investing overseas.
    So, even before you had the creation of the AIIB, you had 
governments like Germany, the Netherlands, et cetera, 
significantly enhancing the ability of their development 
finance institutions to promote foreign direct investments 
overseas.
    Now, I think the AIIB is certainly the latest and probably 
the most consequential of these developments. And it is one 
that I think we need to understand--we need to look at 
carefully and understand. The amount of liquidity that China 
will be injecting into overseas markets will be--is already 
significant, and will continue to grow. And I think there is a 
question of what, if any, U.S. response there might be.
    I will say that, when OPIC invests alongside U.S. companies 
in overseas markets, we do so with a set of environmental, 
labor, social, human rights standards that have been set by 
Congress and that are far superior to those that are--than 
those that are being promulgated currently by the Chinese 
banks. And I really do think that we lead by example when we 
invest overseas.
    Senator Murphy. But, does that pose the risk of a race to 
the bottom? As you have more entrants into these global capital 
markets that come with, sort of, political agendas rather than 
simply financial agendas, the expectation that they will get 
their money back with return, does that jeopardize the high 
standards that we traditionally have set?
    Mr. Morton. So, I mentioned before that over 40 percent of 
our portfolio last year was in Africa, and I have probably 
spent more time in Africa during my 5\1/2\ years with the 
agency than on any other continent. There is not a country or 
capital that you can go to on the African Continent where the 
government is not crying out for U.S. investment and U.S. 
standards and U.S. values and U.S. leadership. And so, there is 
always a temptation, I think, for a race to the bottom, but I 
think that countries that have come into contact with U.S. 
investors and U.S. capital understand the different standards 
that come with that, and crave it. And there really is a strong 
desire, in embassy after embassy that we have spent time with, 
for U.S. companies to be actively investing into these markets.
    Senator Murphy. Thank you, Mr. Morton.
    Mr. Morton. Thank you.
    Senator Murphy. Mr. Ward, tell us a little bit more about 
chlorine and about the role of OPCW in addressing these new 
reports of the use of that chemical inside Syria.
    Mr. Ward. What is interesting is that the first major use 
ever in World War I of a chemical weapon was chlorine. In April 
1915, the Germans, at Ypres, released many cylinders filled 
with chlorine gas. It is heavier than air. It went across No 
Man's Land and down into the trenches, killing thousands. But, 
very quickly thereafter, both the allies and the axis powers 
developed much better chemicals than chlorine to use--phosgene, 
mustard, lewisite--and then eventually, of course, later came 
nerve agents after World War II.
    So, chlorine, we all think of it as the thing associated 
with your pool. It is a cleansing agent. It is used around the 
world in order to sanitize the water, to turn it into drinking 
water. So, it is ubiquitous, and it is all over Syria for that 
purpose.
    Well, the Syrians evidently decided to take chlorine 
canisters, wrap detonation cord around them, and turn them into 
improvised barrel bombs, which we believe were very likely 
rolled out of helicopters. There is strong evidence, from the 
factfinding mission report from April and May of 2014, that all 
of the witnesses who survived the attacks with the chlorine 
bombs, helicopters were overhead whenever this happened. Well, 
only the Syrian government has helicopters. The opposition does 
not. And it is a very strong incriminating indicator.
    What happens, though, is, you know, when the bombs start to 
drop, people naturally go into the basement, and the chlorine 
being heavier than air goes down into the basement. It has not 
killed in hundreds or thousands, the way nerve agent can, but 
the systematic and repeated use--the number of casualties is 
accumulating more and more over time, and it has become a 
terror weapon to be used by the Syrian Government.
    Senator Murphy. And so, to your role, this is not on the 
list of--educate me as to what your organization can do and 
what role you play.
    Mr. Ward. There is a list that goes with the treaty, and 
that list of chemicals defines not what a chemical weapon is, 
but what types of facilities around the world will be subject 
to routine inspections. What happens is that chlorine is so 
ubiquitous, the organization would spend an enormous amount of 
time just inspecting chlorine facilities around the world, so 
it is not on the list for inspection purposes. However, 
anyone--any country that uses a toxic weapon to kill people has 
violated the Convention. The Convention covers all toxic 
chemicals. The inspection regime, of necessity, had to narrow 
itself down to the most likely suspects. And chlorine, being a 
chemical that quickly became outdated as a chemical weapon even 
in World War I, was not included on the list. But, you know, in 
the case of Syria, they have found a use for it once again, a 
very lethal one.
    Senator Murphy. Mr. Bodde, sort of a common saying around 
here that there are not military solutions to many of the 
problems we face in the Middle East. And that probably 
oversimplifies the fact; there are military components to most 
of these fights. But, our military action in Libya is probably 
as good an example of our failure to understand that you cannot 
have a military solution without a political component and 
political plan underlying that military action, given that it 
was our military action that led to the fall of Qadhafi that 
created this vacuum that still exists today.
    This is probably an unfair question to ask somebody who is 
not on the ground yet, but you are studying your new post. What 
lessons have we learned about our military engagement in Libya 
that, at the time, was not partnered with a political plan that 
was realistic on the ground? Is the lesson that we just should 
not get into the business of trying to use military power to 
depose brutal dictators if we do not have a political plan? Is 
the lesson that you need to do more planning ahead of time? 
What should we be thinking about as the lessons coming out of 
our, I think, at this point, failed military intervention in 
Libya?
    Ambassador Bodde. Senator, I will not characterize your 
question as an unfair question, but I think it is a question I 
have been asking myself in a different fashion, and it is one 
that I think I am going to be finding the answer out over the 
months to come.
    It does take me back, though, to a--what we are looking to 
do right now, as I think one of the things that is happened, 
post what happened 4 years ago, is the lack of governance, the 
lack of rule of law, the lack of security. The sum total of all 
this has created a situation that is untenable, and that is why 
I think it is so important that we continue our efforts on this 
Government of National Accord. Until we can have some form of 
inclusive government, until we can bring as many of the parties 
in Libya together to get things back on a new normal, all of 
the problems that--will continue to exist.
    But, what I would like to do is take that question, come 
back to you in a few months after I am on the ground, and give 
you a much more realistic and an answer based on my experience 
there.
    Senator Murphy. I think that is fair.
    Mr. Sievers, talk to me about the potential role that Oman 
plays in the Syrian political process. This is a government 
that prides itself on trying to be a broker, or at least put 
themselves in the position to be a broker. We have heard some 
optimistic testimony from the administration about a political 
process that is going to kick off at the end of this week. What 
role may Oman be able to play as that continues?
    Mr. Sievers. Senator, I believe that there was a meeting a 
couple of days ago between the Omani Minister for Foreign 
Affairs, Yusuf bin Alawi, and President Assad. That was the 
first Omani contact that I am aware of at that level. So, it 
does appear that they are stepping up their engagement. They 
have not been, so far, a major player in regional efforts to 
find a negotiated solution, but it does appear that they are 
now becoming more engaged as various elements of diplomacy come 
into play.
    So, I think it is something that we need to engage with 
them on very intensively in the days ahead, but it is a--it is 
actually a pretty new development. Their role elsewhere has 
been to promote diplomatic solutions to regional crises, when 
they have been able to do so.
    So, that is their approach.
    Senator Murphy. Do they have a position on whether Assad 
has to go, has to stay, has to stay for an interim period of 
time?
    Mr. Sievers. As far as I am aware, they have not taken a 
public position yet on that. But, I think we should get a more 
detailed readout from the Omanis about this meeting, and 
hopefully we will know more about that. I would be happy to 
arrange for a briefing for you on that once we have that 
information, but I do not know, at this time.
    Senator Murphy. Ms. Millard, was a really touching tribute 
to your husband, and we are very sorry for your loss.
    You talked--I thought it was very interesting, your 
response to Senator Risch about the location of some of this 
recruitment. And it speaks to this dependence that Tajikistan 
has on Russia, a country that has potentially massive 
undeveloped economic capacity--natural resources, potential for 
hydro power. Sort of linking you to the guy at the other end of 
the table here, what is the opportunity for U.S. aid and U.S.-
backed development to try to bring this country to a point 
where it is not so reliant on Russia for the economic well-
being of so many that travel across the border to bring home a 
paycheck for their family?
    Ms. Millard. Thank you for the question, Mr. Senator.
    Certainly, the links that Tajikistan has with its immediate 
neighbors and Russia, we--are there; they are historic fact. 
That said, Tajikistan wants a multivector foreign policy, and 
that gives us an opportunity to work with them on--in a number 
of different areas. And there are a lot of needs there, so in 
our assistance program, we focus on a broad range of areas, 
including, you know, improving the investment climate, you 
know, food security, education, health, women, girls. So, I 
think there are a lot of opportunities for us, and I will be 
sort of taking an inventory of what we are doing, if confirmed, 
and seeing where there might be more opportunities for us.
    Senator Murphy. Mr. Chairman, if I could ask just one last 
question. It is actually for all three of you.
    You know, I have just been in this role on the Foreign 
Relations Committee for 3 years, but I have had the chance to 
travel to a lot of posts around the world which are difficult 
places for foreign officers, especially young foreign officers, 
to serve. And that would be the category of all three of your 
posts. So, as you have served in a variety of leadership 
capacities, what have you learned about the ways in which you 
can create a--and, Mr. Bodde, you are going to, you know, a 
place that everyone who gets assigned will think twice about, 
given the history--what have you learned about the way in which 
you can create a positive working environment and culture for 
your employees, despite the fact that it is pretty tough 
territory?
    Ambassador Bodde. Mr. Chairman, if I can answer first.
    One of the things I have learned, Senator, is, the tougher 
the post, the--usually the higher the morale is. And it speaks 
to the dedication of my colleagues, particularly my young 
colleagues, in the Foreign Service. But, young colleagues are 
new colleagues, and they need nurturing, they need mentoring. 
And I have found that, for every moment I spend mentoring, the 
payoff both to the mission, to the post, and to the State 
Department, writ large, is so large, it is just something we 
all have to do. It is something, even as an Ambassador--
normally, in a post, this falls to the Deputy Chief of Mission, 
who has the line responsibility for this. In Nepal, I spent an 
hour every 2 weeks, after our country team meeting, with all of 
my untenured officers, all the specialists, talking about a 
leadership issue and then talking about a life experience, just 
trying to teach them the lesson that, ``Here is how I did it, 
here is the mistake I made. You are going to make different 
mistakes, but at least you have the benefit of mine.'' And what 
I found is, they are like sponges, they soak it up.
    The other thing, sir, is, we are blessed with--I think all 
of us would agree, we are in one of the best careers and jobs 
in the world. And most people in the Foreign Service, once they 
realize the interesting work they get to do, that is a 
motivation itself, and it is our job, as leaders, to keep that 
spark going and to give them real responsibility and get them 
out there.
    Mr. Sievers. Senator, if I may, these are really tough 
questions, particularly in areas of the world where posts are 
often going unaccompanied, people cannot plan very well. They 
go into a post, expecting one set of circumstances, and then it 
changes and families are evacuated. I think the State 
Department is investing enormous efforts in helping people cope 
with these situations, but it is very tough. It varies 
considerably from place to place.
    I feel very fortunate that Oman is a country that--where we 
still--we have families, we have an excellent American school, 
we have very good morale, by all indications that I have 
received. But, that obviously--maintaining that is something 
that has to be a very, very high priority.
    I agree with my colleague, Ambassador Bodde, that we are 
attracting excellent people to the Foreign Service in all of 
our agencies. And I have also worked very closely with 
colleagues in the military and in other agencies. And, across 
the board, I think people feel a sense of commitment to 
American values and to representing the United States abroad 
and to promoting American interests.
    But, they want to hear from us, from those of us in 
leadership position, how we see things, where we see things 
going. They want a certain amount of transparency about the 
challenges that we face. And so, it is incumbent on us, as 
leaders, to share that information with them on a regular basis 
and to try to address their questions as often and as 
accurately as we can. Sometimes, they are things that we cannot 
talk about, but most of it can be shared, and I think that pays 
a great deal of benefit.
    Ms. Millard. So, Senator, both of my colleagues have 
mentioned a number of things that have been certainly high on 
my agenda, such as mentorship, leadership. I would like to add, 
in a--isolated, difficult posts, I think people-to-people 
contacts can be tremendously rewarding for everyone at the 
Embassy, from the most junior person, to feel that they can get 
out and perhaps give a presentation on some aspect of American 
life or American culture. And these kind of presentations can 
be tremendously rewarding for the young person giving them, but 
also give wonderful new contacts for us as we represent the 
United States abroad. So, that is something I have observed and 
something I hope to continue in Tajikistan, if confirmed.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Senator Risch. Thank you, Senator.
    I am going to wrap up, here, in just a minute, but, before 
I do, I want--one of the line of questioning for you, Mr. 
Ward--and if you are uncomfortable in going down this road, 
please say so and we can pursue it in a different setting. You 
talked about the--and I think it is fairly well accepted by the 
international community--that the Assad regime has used 
chemicals, even after they said they would not, even after they 
jointed the CWC, even after they made all the commitments, 
and--they have a partner today: Russia. What role does Russia 
play in the organization? And, you know, when you are standing 
on this side of it, these things are stunning, because--I mean, 
if the United States was involved with a partner that was doing 
this sort of thing, I mean, we would wash our hands of it very 
quickly, or stop it, one or the other. And they obviously are 
not lifting a finger, and yet they would have the same 
information that you would, that the international community 
has.
    What can you tell us about that?
    Mr. Ward. Thank you, Mr. Chairman, for your question.
    You know, this has been a bit of an education for me in 
international diplomacy, because what you learn sometimes is 
that, even though we might disagree with a country on a whole 
host of issues, sometimes we can find common cause on an issue. 
And I know when Secretary Kerry and Foreign Minister Lavrov got 
together in September 2013, and basically found a way to at 
least remove chemical weapons from the Syrian civil war 
equation, even though they probably could not agree about 
anything else about that civil war, both of them saw the value 
in removing chemical weapons from it. And Russia has been a 
good partner in helping to address this dimension of the 
problem.
    When the factfinding missions came out and said use has 
taken place, Russia--they were a little resistant at first, but 
they came along, and, in August, a U.N. Security Council 
resolution was adopted, with Russian support, Resolution 2235, 
which established a mechanism, the joint investigative 
mechanism, to actually attribute responsibility for the attacks 
that had been confirmed by the OPCW. Russia actually supported 
that step. And that process is just coming up and running now, 
and the allegations from 2014, as well as any new confirmation 
of use that comes along, is going to be investigated by this 
U.N. group and then reported to the Security Council.
    So, I went into this process with your skepticism. You 
know, ``We are having issues with them in other areas. How can 
they be a good partner here?'' But, the time I have spent 
traveling from my current job to The Hague and working with 
Russian colleagues, they have been cooperative on this issue, 
and pushing this forward, and now we are in a position to 
actually try to hold people accountable, governments 
accountable, for the use of chemical weapons in Syria. It is a 
remarkable achievement, given, as you have emphasized, the 
other areas where there really is a complete disconnect between 
the United States and Russia.
    Senator Risch. Well, let me say that--I am not going to be 
as generous as you are to the Russians. First of all, I 
appreciate them supporting the resolution. And that was the 
right thing to do, and they should have done it. Having said 
that, everything we get is, they have got virtual control, 
jointly with the Iranians, over the Assad regime, which could 
not survive a day without those two supporting them. It would 
seem to me that, if they are as serious and as--acting in good 
faith as you perhaps suggest, it would not take but a phone 
call from an individual--you know who I am thinking of--to 
Assad, saying, ``This is not going to happen again, or we are 
out of here.'' And so, I am not going to be as generous to them 
as you are. And we will--you know, I have got some other 
questions in that regard, but probably a different setting is 
appropriate for it.
    So, with that, thank all of you for your service. Thank you 
to your families for supporting this service to the people of 
the United States. These things are incredibly important to our 
success around the world.
    And, with that, we are going to close the hearing. The 
record will remain open, however, for questions, until the 
close of business on Friday. So, you may get some more probing 
questions.
    But, you have been very generous with your time and, I 
think, very candid with your answers. And Senator Murphy and I 
both deeply appreciate that.
    So, with that, the hearing will be adjourned.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of John Morton, Nominated to be Executive Vice President of 
the Overseas Private Investment Corporation, to Questions from Members 
                            of the Committee

                      john morton's response to a 
                      question from senator risch
    Question. Given the development of more advanced financial 
instruments to price risk in developing economies, do you believe the 
role of OPIC should change, and what should it focus on?

    Answer. In the more than 40 years since OPIC was created, financial 
markets in emerging countries have continued to evolve. An early 
example of this was the rise of a competitive, private sector political 
risk insurance (PRI) industry. Indeed, at OPIC's creation, no such 
market existed and OPIC is credited with having created modern day PRI.
    For the first two decades of the OPIC's existence, political risk 
insurance accounted for the majority of the Agency's business. Then, 
having created and catalyzed this market, OPIC stepped back as the 
private PRI market began to take hold. Today, political risk insurance 
accounts for less than 15 percent of the Agency's total portfolio and, 
consistent with our statutory mandate, OPIC PRI is limited to countries 
and sectors where the private PRI market is not present.
    As financial markets continue to evolve, OPIC is committed to 
ensuring that we remain as catalytic a force as possible for private 
capital mobilization. A central concern in every OPIC-supported project 
is providing maximum catalytic impact with the least financial exposure 
to the Agency and the U.S. taxpayer.
    Based on my 5\1/2\ years at this agency, I am confident that OPIC 
plays a critical role in promoting positive developmental outcomes, at 
no net cost to U.S. taxpayers, in some of the world's poorest countries 
and regions--countries and regions which are otherwise largely 
untouched by the growth of financial markets in the more advanced 
economies.
    OPIC's congressionally mandated mission to bring the private sector 
into international development is more timely today than at any time 
since the Agency was created. There are simply not sufficient public 
funds to solve the world's daunting development challenges. Food and 
energy scarcity, water shortages, infrastructure needs, and limited 
access to credit and banking services--are all issues where private-
sector-based solutions are emerging, but still require a small amount 
of risk mitigation from development finance institutions like OPIC to 
take root in the most challenging emerging markets.
    Up to 80 percent of global economic growth over the coming decades 
is expected to occur in these emerging markets. Private capital will 
flow to the most stable countries, regions, and sectors. OPIC's role is 
to catalyze that flow in promising but challenging countries, regions, 
and sectors. In carrying out this mission, OPIC will maintain its focus 
on low-income countries, on underserved populations, and on working 
with small and medium-sized U.S. enterprises.

                               __________

Response of Kenneth Damian Ward, Nominated to be U.S. Representative to 
the Organization for the Prohibition of Chemical Weapons, to Questions 
                     from Members of the Committee

                     kenneth ward's response to a 
                      question from senator risch
    Question. The increasing use of very different chemical weapons 
around Islamic State territory seems to indicate that IS has developed 
at least a small-scale chemical weapons program, and may be able to 
manufacture low-quality blister agent or obtained chemical arms from 
undeclared Syrian Government stocks. How do you assess the 
proliferation risk in Syria right now?

    Answer. We are very concerned about allegations that ISIL has been 
producing and using chemical weapons. Syria continues to be a country 
of significant proliferation concern. We monitor its proliferation 
activities closely and have worked with like-minded countries for years 
to sensitize the international community to the proliferation risks of 
exporting dual-use items to Syria. We are equally concerned with two of 
the October 29, 2015, reports of the Organization for the Prohibition 
of Chemical Weapons (OPCW) Fact-Finding Mission. One report confirmed 
with the ``utmost confidence'' that mustard agent was used in Syria 
near the Turkish border. The other concluded that several incidents 
that occurred in Idlib, Syria, likely involved the use of one or more 
toxic chemicals as a weapon.
    We would be pleased to provide a classified brief on this issue. In 
conjunction with this response, the State Department is providing the 
committee with the three OPCW Fact-Finding Mission reports issued on 
October 29, 2015, regarding alleged chemical weapons use in Syria.

                               __________

Responses of Peter William Bodde, Nominated to be Ambassador to Libya, 
               to Questions from Members of the Committee

                ambassador-designate bodde's responses 
                    to questions from senator risch
    Question. Even if the parties to the Government of National Accord 
are able to finalize an agreement, what is your assessment of the 
institutional capacity of the country to move from getting an agreement 
to actually implementing one?

    Answer. The political crisis in Libya has lasted over a year. The 
existence of two competing governments has weakened Libyan 
institutional capacity. The level of engagement by all sides, 
especially over the past month, is a testament to the importance 
stakeholders attach to ensuring a new Government of National Accord 
(GNA) meets the needs of its constituents and is politically 
sustainable in the future. Implementing the proposed framework for a 
GNA will be challenging on several levels, and we will do what we can 
to support and build the institutional capacity of the new government. 
The new GNA will need to devote significant attention to promote 
economic recovery, improved security, and progress on the political 
transition.

    Question. Under what conditions could you see a return of U.S. 
personnel to the country?

    Answer. Once a GNA is seated in Tripoli, our diplomatic engagement 
will be critical to bolster its legitimacy. A GNA must secure the 
support of major actors in the security sector to govern effectively.
    Assuring the safety and security of the people under Chief of 
Mission authority will be my priority, if confirmed. When it is clear 
that Tripoli is sufficiently secure for returning members of the 
international community, the State Department will explore the 
possibility of re-establishing our Embassy in Tripoli.
    However, personnel will return to Tripoli only when a thorough, 
rigorous, deliberate policy and operational planning process conducted 
in accordance with Accountability Review Board recommendations 
determines that it is safe for them to do so.

                               __________
                ambassador-designate bodde's responses 
                     to questions from senator paul
    Question. In your testimony you stated you were going to coordinate 
resources and strategies across the U.S. Government in response to the 
terrorist threat in Libya. Specifically, how do you plan on 
coordinating resources with no U.S. presence in Libya and no dependable 
neighboring allies? By what mechanism will the U.S. transport arms to 
pro-U.S. factions in Libya to regain order? Will the U.N. or the U.S. 
be the primary partner in assisting in promoting a civil government and 
will that require a U.N. or U.S. presence on the ground in Libya?

    Answer. It is certainly challenging to maintain continued 
engagement and delivery of assistance to the Libyan people. However, 
the Department of State is actively engaged in coordinated efforts to 
protect U.S. interests in Libya by combating terrorism and supporting 
programs to improve Libya's security climate. Regional states are 
deeply concerned and affected by instability in Libya and have played 
important roles in encouraging negotiation and a final agreement.
    The U.N. arms embargo establishes a stringent notification and 
approval process for weapons transfers to Libya. At this time, our 
focus is to encourage parties to establish a Government of National 
Accord (GNA) as the best vehicle to achieve consent from all regions in 
the country. No one faction can project sovereignty across the whole of 
Libya or deal effectively on its own with the security and 
counterterrorism challenges Libya faces. Under current conditions, 
sending more weapons to one faction could fuel additional civil strife 
and exacerbate the threat of terrorism. Libya needs a stable, inclusive 
government capable of uniting the country against ISIL affiliates and 
other terrorist groups. Coordinating with the United Nations Special 
Mission in Libya (UNSMIL) will continue to be a key aspect of 
responding to Libya's political and security challenges.
    Establishing a permissive environment for a GNA in Tripoli will be 
essential to the government's success. We are working with our Libyan 
and international partners to identify methods to secure such an 
environment. When it is clear that Tripoli is sufficiently secure, we 
will explore the possibility of reestablishing a diplomatic presence in 
Tripoli through a rigorous, deliberate policy and operational planning 
process conducted in accordance with Accountability Review Board 
recommendations.

    Question. In Libya there have been years of constant tribal 
fighting and general civil unrest due to the U.S.'s and broader 
coalition military intervention in the overthrow of Qaddafi. Libya is 
now a breeding ground for ISIL and other extremist organizations 
operating across North Africa. Libya's current ruling body has no 
mandate to govern. What needs to occur in Libya by way of a functioning 
government and a dependable domestic security force before you would 
recommend to the President that the United States is ready to 
reestablish an embassy in Libya?

    Answer. Libya needs a stable, inclusive government capable of 
uniting the country against ISIL affiliates and other extremist 
organizations in order to address terrorism effectively. Tribal 
rivalries are a longstanding feature of Libya's political landscape. If 
a Government of National Accord (GNA) is to succeed, it will have to 
secure support from the many sources of tribal, religious, militia, and 
institutional defense leadership in the country. Libyans will need to 
work together, with international support, to establish a secure and 
permissive environment in Tripoli that allows a GNA to govern free from 
the threat of coercion. When it is clear that Tripoli is sufficiently 
secure for returning members of the international community, we will 
explore the possibility of reestablishing our diplomatic presence in 
Tripoli through a rigorous, deliberate policy and operational planning 
process conducted in accordance with Accountability Review Board 
recommendations.

                               __________

 Responses of Marc Jonathan Sievers, Nominated to be Ambassador to the 
     Sultanate of Oman, to Questions from Members of the Committee

                ambassador-designate sievers's response 
                   to a questions from senator risch
    Question. Given that Oman has always maintained a close 
relationship with Iran while allying itself with the United States and 
the Gulf Cooperation Council, do you believe a future leader of Oman 
would maintain the country's current foreign policy?

    Answer. Oman's foreign policy is pragmatic and deliberate and the 
Omanis have emphasized that their intent is to maintain working 
relations with every country in the region. We anticipate the future 
leader of Oman will maintain this traditional policy.
    As a result of this policy, Oman has been able to mediate on 
several thorny issues, producing important results. In 2010 and 2011, 
for example, Oman helped secure the release of three American hikers 
who had been held in an Iranian prison since 2009.

                               __________

 Responses of Elisabeth I. Millard, Nominated to be Ambassador to the 
   Republic of Tajikistan, to Questions from Members of the Committee

               ambassador-designate millard's responses 
                    to questions from senator risch
    Question. China's ``One Belt, One Road'' initiative has seen them 
push into Central Asia as they seek to create bridges to Europe and 
access to Central Asian energy. How concerned do you believe we should 
be about rising Chinese influence in Tajikistan?

    Answer. Central Asia is one of the least economically integrated 
regions in the world. There is a pressing need for both infrastructure 
investment and harmonization of border regulations to improve regional 
economic connectivity.
    The State Department's New Silk Road initiative focuses on ``soft'' 
infrastructure in the five Central Asian countries, including support 
to harmonize customs and regulatory regimes, institute international 
best border practices, reduce barriers to trade, and facilitate transit 
of people through the region. These efforts are critical to help 
Central Asian economies connect more efficiently and diversify. The 
State Department also supports the development of a regional energy 
market linking Central Asia and South Asia, through projects like CASA-
1000.
    China's focus in Central Asia over the last few years has largely 
been on investments in ``hard'' infrastructure such as pipelines, rail, 
and roads. Improved ``hard'' infrastructure could complement these New 
Silk Road efforts to increase economic connections in the region. In 
Tajikistan, China has focused on improving transit corridors such as a 
cross-country highway system and pipes carrying gas and oil from 
Turkmenistan. The State Department will urge China to utilize global 
standards and best practices in order to ensure sustainable economic 
growth.
    The State Department encourages our Central Asian partners to 
maintain close ties with all their neighbors, in keeping with their 
multivector foreign policies. Tajikistan does not have to choose 
between good relations with the United States and other regional 
powers. By working together with our Central Asian partners, other 
influential countries including China, and a wide range of other 
international actors, the State Department can collaborate to create 
prosperous economies, including in Tajikistan, that are not overly 
dependent on any one country.

                               __________


                              NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 29, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Thomas A. Shannon, Jr., of Virginia, to be an Under 
        Secretary of State (Political Affairs)
Laura S.H. Holgate, of Virginia, to be U.S. Representative to 
        the International Atomic Energy Agency, and to be U.S. 
        Representative to the Vienna Office of the U.N.
                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Perdue, Cardin, Menendez, Coons, 
Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    Today the Committee on Foreign Relations will consider the 
nomination of Thomas Shannon to serve as Under Secretary of 
State for Political Affairs. We welcome Ambassador Shannon and 
thank him for the more than 30 years of service to our country. 
As I said to him when he came into our office--and I am sure, 
Ben, you said the same thing. All of us are gratified when 
people who committed their life in this way end up ascending to 
these types of positions. So we are very happy for you.
    The Under Secretary for Political Affairs manages regional 
and bilateral policy issues and oversees the Bureaus for 
Africa, East Asia and the Pacific, Europe--and Eurasia, the 
Near East, South and Central Asia, the Western Hemisphere and 
International Organizations. Just a note to staff, we could say 
the world. [Laughter.]
    It would be a little easier. Thank you.
    The nomination we are considering today is for the most 
senior and influential Under Secretary in the State Department. 
This is a key nomination for this committee at this time. The 
person that the Senate confirms for this job will not just 
serve this administration but will also be an institutional 
bridge to the next administration.
    With that, I will turn to Senator Cardin for any opening 
comments he may wish to make.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, let me first thank you 
for the speed in which this confirmation hearing as been set. I 
really appreciate it, and I know your commitment so that the 
State Department has a full complement in dealing with the 
urgent international issues. There is not a shortage of that.
    We could not have a better person than Ambassador Shannon, 
and we thank you very much for your career of public service. 
We thank you and your family for what you have done for our 
country.
    This position was vacated by Secretary Sherman, who did an 
outstanding job representing the interests of our country.
    As I think Senator Corker has already pointed out, 
Ambassador Shannon is a career diplomat. He is currently the 
Counselor at the State Department. He was the Ambassador to 
Brazil. He was the Assistant Secretary of State and Senior 
Director of the National Security Council staff for Western 
Hemisphere Affairs. He has had posts in Venezuela, South 
Africa, and other critically important positions.
    Mr. Chairman, as I think you pointed out, we have 
conversations with key nominees before we actually have the 
formal hearings. And it gives us a chance to sort of explore 
and get a sense as to the commitment to the issues that we are 
concerned about. And I just want to share with my colleagues 
that in my conversation with Ambassador Shannon, I was very 
impressed with his understanding of the importance of this 
committee, our oversight role, and the importance of 
transparency and openness between the position of Under 
Secretary of State for Political Affairs and the Senate Foreign 
Relations Committee. And I think that is going to bode well for 
the type of relationship that we need in order to speak 
strongly for our country, and conduct our proper oversight role 
of the United States Senate.
    I do want to mention that there are many issues. We could 
talk about the implementation of the Iran agreement and the 
increased U.S. engagement in the Middle East. We could talk 
about Russia's engagement in Ukraine and whether they will 
comply and how we will assure that they are held to the 
standards of the Minsk Agreement and then, of course, Russia's 
engagement in Crimea, Russia's engagement in Moldova, Russia's 
engagement in Georgia and now in Syria.
    But I just want to mention one point that I know the 
chairman and I are going to be very much engaged with you, 
Ambassador Shannon, and that is the advancement of good 
governance, transparency, human rights, anticorruption. And the 
focal point this year was on the TIP Report. You hold a 
critically important position to make sure the TIP Report, 
which is the gold standard for judging conduct globally on the 
commitment to fight modern-day slavery and trafficking, is held 
to the highest standards and the tier ratings are based solely 
on the facts on the ground. In our conversations, I know you 
are committed to that, but we want you to know this committee 
is going to do everything we can to support that type of 
analysis on the tier ratings of the countries of the world.
    With that, Mr. Chairman, I look forward to our exchange.
    The Chairman. Well, thank you for bringing up the TIP 
issue, and we talked extensively about that in our meeting too. 
And certainly one of the questions I will ask later will be 
about that. But I really appreciate you emphasizing that in an 
appropriate way.
    With that, we will turn to our nominee. Our first nominee 
is Ambassador Thomas Shannon, who has been nominated to serve 
as Under Secretary for Political Affairs. Ambassador Shannon 
earned the rank of Career Ambassador, the highest in the 
Foreign Service. Currently he serves as Counselor of the State 
Department, a position he has held since 2013. Previously 
Ambassador Shannon has served as our Ambassador to Brazil, 
Assistant Secretary of State for Western Hemisphere Affairs, 
Special Assistant to the President and Senior Director at the 
National Security Council, and assignments abroad, apparently 
having some difficulty keeping a job. [Laughter.]
    He received a bachelor of arts from the College of William 
and Mary and both a master's and doctorate of philosophy from 
Oxford University.
    We thank you for being here. We know you may have some 
people to introduce, which we hope you will, and we look 
forward to your testimony.

 STATEMENT OF HON. THOMAS A. SHANNON, JR., NOMINATED TO BE AN 
         UNDER SECRETARY OF STATE FOR POLITICAL AFFAIRS

    Ambassador Shannon. Thank you very much, Mr. Chairman, 
Senator Cardin, members of the Senate Foreign Relations 
Committee. Thank you for this opportunity to appear before you 
today as President Obama's nominee to be the next Under 
Secretary for Political Affairs. I very much appreciate the 
opening remarks, especially the comments regarding TIP, and I 
am going to be very happy to answer those questions as we 
advance in this hearing.
    As you can imagine, I am very honored by this nomination. I 
am also humbled by the nomination. Its pedigree is 
distinguished. From its first occupant, Robert Murphy, to such 
great diplomats as Philip Habib, Walter Stoessel, Larry 
Eagleburger, Tom Pickering, Bill Burns, and Wendy Sherman, the 
position of Under Secretary has been defined by the 
extraordinary quality, ability, and the dedication of its 
occupants.
    Throughout my career, I have sought to serve in challenging 
and complicated places where the power and influence of our 
great Republic could be brought to bear in pursuit of our 
interests and promotion of our values.
    As you consider my nomination I can offer you the 
following.
    First, I have dedicated my life to public service. My 
Foreign Service career began in 1984 and it has spanned five 
administrations, two Democratic and three Republican.
    Second, I understand the efficacy of American power and 
purpose. I have worked in countries and regions in transition 
and transformation. From Latin America to Africa, I have seen 
the important and positive influence the United States can 
bring in helping countries move from authoritarian to 
democratic governments, from closed to open economies, from 
autarkic or import substitution models of development to 
development based on regional integration, and from isolation 
to globalization. In this process, I have seen and understood 
the attraction we hold for many and the unique role we play in 
shaping world events and order.
    Third, I believe that diplomacy is an act of advocacy. Our 
great diplomats from John Jay to John Kerry have had a deep 
understanding of power politics and its global dimensions. They 
have used this understanding to protect and advance American 
interests. However, the vision of order and purpose they 
brought to American diplomacy was infused with values that 
reflect our democratic ideals and our conception of individual 
liberty.
    Fourth, I know how to get things done and what needs to be 
done. As noted, my professional experience has spanned 
assignments in the White House, the State Department, 
international organizations, and embassies. And as the chairman 
noted, I probably do have a problem keeping a job. I am 
familiar with the machinery of our foreign policy and diplomacy 
and have experience at every level.
    Finally, I understand the importance of consultation with 
the Congress. I entered the Foreign Service during the Central 
American wars. This was a time of sharp partisan and 
institutional divide on our policy in the region. This divide 
limited our ability to successfully implement our policy. It 
was only when broad consensus was formed around an agenda based 
on democracy, human rights, and economic development that we 
were able to form a bipartisan approach to Central America. 
This experience shaped how the legislative and executive 
branches faced foreign policy challenges in Colombia, and the 
broad bipartisan support enjoyed by Plan Colombia and its 
successful implementation led to further bipartisan cooperation 
on hemispheric trade policy, reconstruction and development in 
Haiti, and the Merida Initiative in Mexico. These experiences 
taught me that engagement with Congress is an essential part of 
our foreign policymaking process and its only long-term 
guarantee of success.
    As noted, if confirmed, I will consult with the Congress. I 
will consult with this committee. I will consult with its 
staff.
    As I reflect on my experience in American diplomacy, I am 
struck by the tremendous changes I have seen in three decades. 
But as dramatic as these changes have been, they will not 
compare to what awaits us. The factors that are driving change, 
political, economic, social, and technological, are 
accelerating due to globalization. This, in turn, will increase 
the velocity of change and challenge our ability to understand 
and respond to events in the world.
    During the past 2 years as Counselor of the Department, I 
have worked on a variety of issues that have been emblematic of 
the kinds of changes we face.
    First, I worked with our partners in Africa to fight 
jihadist ideology that has spread from the Middle East into 
Somalia, Nigeria, and Mali along an historic fault line of 
conflict that divides northern Africa and the Sahel.
    Second, I have worked with our Special Envoy to South 
Africa on a long, complicated, and ongoing effort to bring 
peace to South Sudan.
    Third, I worked in Southeast Asia on the Lower Mekong 
Initiative, a sustainable development effort designed to 
improve coordination and cooperation among the countries of the 
Lower Mekong River Basin to ensure the long-term viability of 
the river as a source of food, energy, and water.
    Fourth, I worked on maritime security, counterpiracy, and 
trade issues within the Indo-Pacific region through the Indian 
Ocean Rim Association.
    Finally, I worked to develop a response to the crisis of 
unaccompanied Central American child migrants who appeared in 
large numbers across our southwest border in the summer of 
2014. The result was the Alliance for Prosperity, a plan and 
program designed by Guatemala and Honduras and El Salvador, 
with the help of the Inter-American Development Bank, to 
address the root causes of migration in the communities of 
origin of these children.
    If confirmed, it will be my assignment to ensure that the 
Department of State, under the direction and guidance of the 
President and the Secretary of State, can meet the challenges 
and seize the opportunities that confront us. It would be my 
job to ensure that our bureaus and missions and the remarkable 
individuals who serve there have the policy and programmatic 
guidance to be successful and the high-level access, 
assistance, and support to shape and implement our foreign 
policy. This is a responsibility that I take seriously and 
again acknowledge the important role of the Congress.
    Let me close by thanking the President and Secretary Kerry 
for the confidence they have placed in me. Let me thank you, 
Mr. Chairman, Senator Cardin, and the Senators present for this 
opportunity to appear before you.
    Finally, let me thank my family. Today I have present with 
me my mother, Barbara Shannon. Along with my father, she 
instilled in me the values that led to my public service. I 
have with me also my brothers, Paul and Terry, both special 
agents of the FBI and both veterans of the Afghanistan and Iraq 
conflicts.
    I would also like to recognize my wife, Gisela, and our 
sons, Thomas and John. Unfortunately, they are not here today. 
I would not be here today without them. As our colleagues in 
the Foreign Service know well, our service to country is a 
family affair, and the joys and dangers of that service abide 
in our families.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ambassador Shannon follows:]

        Prepared Statement of Ambassador Thomas A. Shannon, Jr.

    Mr. Chairman, Senator Cardin, and members of the Senate Foreign 
Relations Committee, thank you for the opportunity to appear before you 
today as President Obama's nominee to be the next Under Secretary of 
State for Political Affairs.
    I am honored by this nomination. If confirmed, I would be the 22nd 
Under Secretary since this position was created in 1959. I would be the 
15th Foreign Service officer to hold this position. For someone such as 
myself, who has had the honor and privilege of serving the American 
people and its elected leaders for 31 years as an FSO, there could be 
few higher honors.
    I am also humbled by this nomination. Its pedigree is 
distinguished. From its first occupant, Robert Murphy, to such great 
diplomats as Philip Habib, Walter Stoessel, Larry Eagleburger, Tom 
Pickering, Bill Burns, and Wendy Sherman, the position of Under 
Secretary has been defined by the extraordinary quality, ability, and 
dedication of its occupants.
    These sentiments, however, are matched by a quickening of the blood 
as I contemplate the challenges and opportunities facing our foreign 
policy as the United States navigates through an increasingly complex 
and dangerous world.
    Throughout my career, I have sought to serve in challenging and 
complicated places where the power and influence of our great Republic 
could be brought to bear in pursuit of our interests and the promotion 
of our values. Today that place is the entire globe. Not since the end 
of the First World War and the collapse of the Russian, Austro-
Hungarian, and Ottoman Empires has the world seen such effervescence. 
While many of the dangers and challenges of the world have been thrown 
into sharp relief, I believe they are outnumbered by the opportunities 
that lie before us. I hope to be able to pursue these opportunities.
    As you consider my nomination, I can offer you the following:
    First, I have dedicated my life to public service. My Foreign 
Service career began in 1984 and has spanned five administrations, two 
Democratic and three Republican. Everything important that has happened 
to me as an adult has happened within the Foreign Service. I began my 
professional life in the Foreign Service, I married in the Foreign 
Service, my wife and I brought forth and raised two sons in the Foreign 
Service, and I have matured and come of age in the Foreign Service. In 
other words, my life and my public service are so entwined that they 
define each other. My desire is to continue to serve.
    Second, I understand the efficacy of American power and purpose. I 
have worked in countries and regions in transition and transformation. 
From Latin America to Africa, I have seen the important and positive 
influence of the United States in helping countries move from 
authoritarian to democratic governments, from closed to open economies, 
from autarkic or import substitution models of development to 
development based on regional integration, and from isolation to 
globalization. In the process, I have seen and understood the 
attraction we hold for many, and the unique role we play in shaping 
world order and events.
    Third, I believe that diplomacy is an act of advocacy. Our great 
diplomats, from John Jay to John Kerry, have had a deep understanding 
of power politics and its global dimensions. They have used this 
understanding to protect and advance American interests. However, the 
vision of order and purpose they brought to American diplomacy was 
infused with values that reflect our democratic ideals and our 
conception of individual liberty. In this regard, our diplomacy has 
always had a human face and purpose. We are not a status quo power, but 
instead a nation comfortable with change and determined to advocate for 
the values that define us.
    Fourth, I know how to get things done and what needs to be done. My 
professional experience has spanned assignments at the White House, the 
State Department, international organizations, and Embassies. I am 
familiar with the machinery of our foreign policy and diplomacy, and I 
have experience at every level. Most immediately, this means I can 
assume quickly the policy management role the Under Secretary plays 
within the State Department, and I can move with equal dispatch into 
the interagency process that determines our foreign policy. It also 
means that I know how to link the work of our embassies and regional 
bureaus to the work of our functional bureaus, ensuring comprehensive 
policy development and execution.
    Finally, I understand the importance of consultation with the 
Congress. I entered the Foreign Service during the Central American 
wars. This was a time of sharp partisan and institutional divide on our 
policy in that region. This divide limited our ability to successfully 
implement our policy. It was only when broad consensus was formed 
around an agenda based on democracy, human rights, and economic 
development that we were able to form a bipartisan approach to Central 
America. This experience shaped how both the executive and legislative 
branches faced foreign policy challenges in Colombia. The broad 
bipartisan support enjoyed by Plan Colombia, and its successful 
implementation, led to further bipartisan cooperation on hemispheric 
trade policy, reconstruction and development in Haiti, and the Merida 
Initiative in Mexico. These experiences taught me that engagement with 
Congress is an essential part of our foreign policymaking process, and 
its only long-term guarantee of success.
    As I reflect on my experience in American diplomacy, I am struck by 
the tremendous changes I have seen in three decades. When I entered the 
Foreign Service in 1984, our major adversary was the Soviet Union and 
the cold war was in full swing. Over time, I watched the collapse of 
the Soviet Union and its East European client states, the decline of 
communism as a viable economic and political ideology, the emergence of 
the United States as the world's sole super power, the democratization 
of the Western Hemisphere, the fraying of the new world order with the 
emergence of regional warfare in the Balkans, the rise of global 
terrorism, the attacks of September 11, the wars in Afghanistan and 
Iraq, and now the emergence of ISIL and the upheaval it has caused in 
Syria and Iraq.
    As dramatic as these changes have been, however, they will not 
compare to what awaits us deeper in this century. The factors that are 
driving change--political, economic, social, and technological--are 
accelerating due to globalization. This, in turn, will increase the 
velocity of change and challenge our ability to understand and respond 
to events in the world.
    During the past 2 years, as Counselor of the Department, I have 
worked at Secretary Kerry's direction on issues that are emblematic of 
these changes. Some of these were:
    First, I worked with our partners in Africa to help fight the 
jihadist ideology that had spread from the Middle East into Somalia, 
Nigeria, and Mali along an historic line of conflict that divides 
northern Africa and the Sahel. Working with the United Nations, the 
African Union, subregional organizations, and our bilateral partners, 
we fashioned an approach that combined diplomacy, security, and 
economic development to enhance the ability of states and civil 
societies to protect themselves from the violence of such groups as al-
Shabab and Boko Haram.
    Second, I worked with our Special Envoy to South Sudan on the long, 
complicated, and ongoing effort to bring peace to South Sudan. I 
participated in the talks sponsored by the Intergovernmental 
Development Authority (IGAD) that led to cessation of hostilities 
agreements and the recent peace accord. Our efforts have been central 
to addressing the humanitarian consequences of the fighting in South 
Sudan, and to shaping a diplomatic approach that attempts to harness 
South Sudan's neighbors, regional organizations, the donor community, 
and the United Nations to address the complex array of ethnic, 
geographic, personal, and political rivalries that shattered South 
Sudan in December 2013.
    Third, I worked in Southeast Asia on the Lower Mekong Initiative, a 
sustainable development effort designed to improve coordination and 
cooperation among the countries of the Lower Mekong River Basin to 
ensure the long-term viability of the river as a source of food, 
energy, and water. This involved building technical capacity among our 
partners, bringing to bear global resources from other major river 
basins--such as the Mississippi and the Danube, developing civil 
society ability to articulate community views within the authoritarian 
political systems that still exist in many of these countries, and 
deepening engagement and confidence in the United States.
    Fourth, I worked on maritime security, counterpiracy, and trade 
issues within the Indo-Pacific region through the Indian Ocean Rim 
Association (IORA). Working with Australia, the European Union, and 
India we enhanced the IORA's profile as an organization and diplomatic 
space to address issues that profoundly affect global food and energy 
security, freedom of navigation, commerce, migration, and the well-
being of one of the fastest growing regions of the world.
    Finally, I worked to develop a response to the crisis of 
unaccompanied Central American child migrants who appeared in large 
numbers across our southwest border in the summer of 2014. The result 
was the Alliance for Prosperity, a plan and program designed by 
Guatemala, Honduras, and El Salvador (with the help of the Inter-
American Development Bank) to address the root causes of migration in 
the communities of origin of these children. Combined with law 
enforcement, antismuggling, public messaging, and multilateral 
cooperation efforts, we were able to significantly reduce the migration 
of unaccompanied children while we built our larger strategy. Our 
success in implementing this strategy will have a long-term impact on 
Central America, Mexico, and the United States, with important 
consequences and lessons for other parts of the world facing similar 
migration crises.
    If confirmed, it will be my assignment to ensure that the 
Department of State, under the direction and guidance of the President 
and the Secretary of State, can meet the challenges and seize the 
opportunities that confront us. As Under Secretary, I would sit atop 
the engine room of the Department of State: the six geographic bureaus 
and the Bureau of International Organizations that oversee our 275 
diplomatic missions, the nearly 10,000 Foreign Service and Civil 
Service employees assigned to these missions, and the 47,000 Locally 
Employed Staff at these missions.
    It would be my job to ensure that our bureaus and missions, and the 
remarkable individuals who serve there, have the policy and 
programmatic guidance to be successful, and the high level access, 
assistance, and support to shape and implement our foreign policy. This 
responsibility is institutional. While we must be prepared to meet the 
challenges presented to us each and every day, we also need to 
understand the long-term needs of the Foreign Service and the 
Department of State. Currently, the Department of State is experiencing 
a quiet but profound generational change. Nearly 60 percent of our 
Foreign Service officers and our Civil Service have served 10 years or 
less. These 10 years have been shaped by our war fighting in Iraq and 
Afghanistan, and many of our officers have served in combat theaters. 
Not since the Vietnam war have we had so many officers shaped by 
conflict. The lessons these officers have learned will be carried with 
them throughout their careers. It is incumbent upon us the ensure that 
they have the mentors, training, and assistance they need to grasp the 
nature of the challenges and opportunities they will face in the 
future, and to advance successfully the interests and values of the 
United States.
    Secretary of State Dean Acheson, surveying the international 
landscape in the aftermath of World War II, said the task that lay 
before the United States was as big as Genesis: ``to create a world out 
of chaos.'' Today, our task is the reverse: to prevent the world from 
collapsing into chaos. This task, like that facing Acheson, requires us 
not to be distracted from ``the effort to affect the world around us.'' 
It also requires us to remember that our diplomacy is about responding 
to the great changes that modernity has unleashed in the world and 
finding a means to shape and affect those changes in ways that benefit 
our interests and are consonant with our values.
    Thank you for your time today. I look forward to your questions.

    The Chairman. Well, thank you very much. We typically are 
much nicer on people coming before us when their kids are here, 
but when your mother is here, it will probably be the same. 
[Laughter.]
    Obviously, just for the record, we talked in our office 
about the TIP Report. We were very dissatisfied. Many of us are 
very dissatisfied with the way it was handled this last year. 
And I, just for the record, wonder if you would share with us 
how you plan to handle it differently this year.
    Ambassador Shannon. Thank you very much.
    I had the opportunity to talk about the TIP Report with a 
whole range of members of this committee, and I was struck by 
the consensus of concern about the TIP Report. And this worries 
me deeply.
    As you noted, the TIP Report is a gold standard report, and 
it is one in which the credibility that the report holds, both 
in the Congress and publicly, is an essential part of that gold 
standard. And so it will be my intention, working with my 
colleagues in the State Department who manage this process both 
on the functional bureau side in J/TIP, on the regional bureau 
side, and especially in our embassies, that we have as clear 
and transparent a process as possible and one that can address 
the concerns expressed.
    Trafficking in persons is an important issue for me. It is 
an issue that I have dealt with at different moments in my 
career, especially as a chief of mission. The information that 
our Office on Trafficking in Persons collects regarding the 
actions of states, governments, and municipalities regarding 
trafficking comes from our embassies in many instances. And so 
how our embassies respond and how they engage with the Office 
of Trafficking in Persons is an important part of this process. 
And I have seen this work and I know it can work. And so I can 
assure you, sir, and I can assure members of this committee 
that I will do everything in my power to make sure that we 
restore the credibility in your eyes of this report and that we 
can address the concerns you have expressed.
    The Chairman. Well, we appreciate that. I will say in some 
cases, I would imagine, that ambassadors want to see good 
things happen in the countries that they are involved in. I 
know the ambassadors play a role. In some cases it can be an 
advocating role for their country. I hope that you will figure 
out a way to ensure that that does not cause things to be out 
of balance.
    Ambassador Shannon. No. We will do that, sir, and I will do 
that. But I can assure you that the American Foreign Service, 
as I noted in my remarks, understands our diplomacy as 
advocacy, and we understand the importance of trafficking in 
persons to you and this committee, broadly to the Congress, but 
also to the President. And so I will do everything in my power 
to make sure that this advocacy is powerful.
    The Chairman. Well, my last comment. You know, certainly I 
respect tremendously those people who offer themselves for 
foreign service. I just understand the dynamics that can 
sometimes take place, human nature dynamics that can happen on 
the ground.
    You have watched and been a part of and worked with so many 
people who have been in this position. You gave a litany of 
those who have come before you, many of whom are highly 
respected. You have watched this and you have seen how people 
have operated. What is it that you think you might uniquely do 
that is different from those who have come before you?
    Ambassador Shannon. Thank you for that question. It is a 
very good one.
    To begin with, there is a bureaucratic and policy 
management process to this job that infuses the work of all 
Under Secretaries. As you noted, the Under Secretary for 
Political Affairs sits atop a variety of bureaus, the six 
geographic bureaus and the bureau that manages international 
organizations, in an effort to manage and focus policy so that 
it can be as successful as possible.
    But I am one of the first nominees really in a long time, 
really since Tom Pickering, who comes with strong experience in 
Latin America and Africa, the larger developing world, and 
really a world of transition and transformation. And although 
my purview will now be the globe--and I have already over the 
last 2 years done a variety of work in the Middle East, more 
deeply in Africa, in Southeast Asia, and in the Indo-Pacific 
region, I do think that I understand the impact and the 
importance of helping countries manage transition and 
transformation, and I understand how the United States has done 
it in a variety of environments but especially in Africa and 
Latin America.
    I began my career in Central America during a transition 
from an authoritarian government, a military government to 
democratic government. I have worked in a variety of countries 
that were making a similar transition, such as in Brazil, and 
in South Africa from 1992 to 1996, I was part of a U.S. team 
that helped manage and promote a transition from an apartheid 
government to the government of Nelson Mandela.
    And so I think I bring an understanding of transition and 
transformation. I think I bring an understanding of post-
conflict societies, and I think I can inject and add a 
dimension to our foreign policy that could be very important.
    The Chairman. Well, thank you very much.
    And with that, I will turn to Ranking Member Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Again, Mr. Ambassador, thank you for your service, and we 
very much appreciate the members of your family that are here. 
We do recognize this is a family commitment, and we thank them 
also.
    You mentioned your experiences with Congress in the Central 
America conflict, that there was a deep division in Congress, 
but where we spoke in unity, the United States was stronger in 
carrying out its mission. There has been a division in Congress 
over the support for the Iran agreement, but there has been no 
division in Congress about the importance of the congressional 
review and the ongoing commitment that Congress has in the 
implementation of the Iran agreement.
    The Iran Review Act that was passed in a very bipartisan 
vote, almost an unanimous vote in the United States Congress 
spells out certain continuing commitments by the administration 
to keep Congress informed. We had a conversation yesterday 
about Iran's compliance with the agreement. There has already 
been a violation of the U.N. resolution dealing with ballistic 
missiles. And how the United States responds to that is, to 
many of us, is an indication of whether we will demand zero 
tolerance for violations and strict compliance.
    So we need to be kept informed in a very open way as to how 
the compliance issues are being addressed. They may not elevate 
to the type of violation that would warrant the United States 
taking actions to reimpose full sanctions, but they may be of 
interest as to how we can make sure that there is full 
compliance with the agreement.
    We also have the concerns of recognizing that Iran is not 
going to change its nefarious activities, particularly as it 
relates to support of terrorism and its human rights issues. So 
being able to trace the funds that Iran will be receiving 
through sanction relief, and how they utilize those funds is 
going to be of great interest to the members of this committee 
and to the Members of Congress.
    So I just would like to get your assurances about keeping 
us fully engaged. We know what the law requires, but what I am 
asking for is, as you pointed out in your relationships with 
Congress in the past, that we are going to have a very open 
relationship and full information so that we can carry out our 
critical responsibilities of oversight.
    Ambassador Shannon. Thank you very much, Senator. Again, I 
appreciate the question and I especially appreciate its intent 
and purpose.
    The implementation of the JCPOA is going to be what makes 
it a good agreement or a bad agreement. And we are intent on 
ensuring that implementation is to the letter of the law and 
the spirit of the law. And in that regard, we intend to consult 
with the Congress along the way and will consult with Congress 
along the way at different steps in the implementation process.
    I think it is worth noting that Secretary Kerry and 
President Obama have selected Ambassador Steve Mull to manage 
the implementation process, both the interagency side but also 
our engagement with the Iranians. He has a group of experts 
working with him that have deep experience in this, and he has 
chosen myself as the nominee for Under Secretary to manage, 
along with Ambassador Mull, our work in the Joint Commission, 
which will meet regularly to assess the implementation process. 
It is worth noting that in choosing us, he has chosen career 
Foreign Service officers and he has chosen two people who did 
not participate in the negotiations of the agreement. And 
therefore, he is bringing fresh eyes and objective eyes to an 
implementation process. I think this is smart and I think it is 
important.
    But as Ambassador Mull and I carry out this work, we will 
be consulting with you, the other members of this committee, 
and your staff, and I can assure you that we recognize and 
understand the importance of having the executive branch and 
the legislative branch having clear understandings of what 
needs to be done in the implementation process.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    Ambassador, it is an honor to have you here today. I 
appreciate the courtesy of a private meeting with you recently. 
And I want to publicly for the record applaud your career. I 
know you have raised your kids abroad. You probably saw your 
mother much less than you would have liked through your career. 
I just applaud your career and thank you for being here and for 
being willing to take on this new responsibility.
    I would like to move to the global security crisis that we 
talked privately about. I see it on three levels. One, we have 
got a power vacuum out there that has created a rise again of 
these power rivalries, China and Russia. We saw another power 
vacuum in Iraq into which ISIS has stepped and created all 
sorts of problems in Syria, Iraq, and several other countries 
in the region and in sub-Saharan Africa. And then, of course, 
now the Iran nuclear deal, as you well said privately and I 
think just now, that it is all in the implementation.
    I would like to focus on Syria. I know we have got talks 
coming up tomorrow. What are the prospects of those talks? And 
are you concerned that in your new role--I mean, are you 
concerned about Iran being a part of the dialogue this early in 
the conversation and also Russia as far as I can see? I mean, 
Bashar al-Assad has been propped up by Putin and by Khamenei. 
Without their help, he would have been gone in my opinion a 
long time ago, and he would not have had the wherewithal to 
continually barrel bomb his people and gas his own people. So 
are you a little concerned about having the arsonist trying to 
help put the fire out in these talks this weekend?
    Ambassador Shannon. Thank you very much, Senator. And 
again, I am very grateful for your willingness to see me and to 
talk about these issues.
    As Secretary Kerry I think noted in his testimony here, and 
I know as Assistant Secretary Patterson and General Allen 
noted, our objectives in Syria remain degrading and defeating 
ISIL, fostering a negotiated political transition, and helping 
Syrians lay the foundation for a free and pluralistic future, a 
future without ISIL and without Bashar al-Assad.
    In this regard, Secretary Kerry----
    Senator Perdue. I am sorry. Is it still the 
administration's position in your understanding in your role as 
Counselor--is it still our position that Bashar al-Assad has to 
go? Is that a prerequisite for this?
    Ambassador Shannon. Correct.
    Senator Perdue. Thank you.
    Ambassador Shannon. And Secretary Kerry, in his effort to 
fashion a global response to events in Syria, as he said, 
trying to chart a course out of hell, he has determined that 
there is a moment in time in which it is important to bring 
together major players and actors to address events inside of 
Syria. Part of this process builds off of earlier processes, 
such as the meetings in London and Geneva.
    But the insertion of Russia and Iran in a very aggressive 
way in Syria has also created a different kind of dynamic. The 
Russian and Iranian presence or support for Assad is nothing 
new, but the Russian military presence and air strikes is 
something new. The presence of Iranian troops and special 
forces is something new and worrisome.
    And for this reason, the Secretary thought it was time to 
bring everybody together and effectively call their bluff, 
determine whether or not their public commitment to fighting 
ISIL and terrorism is a meaningful one and the extent to which 
they are prepared to work broadly with the international 
community to convince Mr. Assad that during the political 
transition process he will have to go.
    Senator Perdue. So as you stated earlier, I think you said 
you have got great experience in post-conflict societies. So is 
it possible that Iran would support a secular government after 
Bashar al-Assad prospectively leaves?
    Ambassador Shannon. I do not know the answer to that 
question, sir, and I think we are only going to determine 
whether or not that is possible by engaging. Our engagement is 
not going to affect our intent or our purpose. We are hopeful 
that we can establish an environment in Syria where we can 
address the underlying political problems and allow the Syrians 
to determine their future and to do it in a way in which they 
are not responding to Iran or to Russia.
    Senator Perdue. I am almost out of time, but I do want to 
move on to Venezuela because of your vast experience there. I 
know that you have led conversations there. Talk to us just a 
minute about our role in ensuring that they have a true and 
open and free election in the upcoming election.
    Ambassador Shannon. Thank you for that question. It is an 
important one.
    As we have engaged with Venezuela, we focused on a variety 
of issues that are important to us.
    First, when we first began our engagement, it was about 
insisting that Venezuela establish a date for legislative 
elections. When we first engaged, they had not established such 
a date, and there was concern about whether or not they would 
establish such a date.
    Secondly, we focused on political prisoners, not just high-
profile prisoners like Leopoldo Lopez and Antonio Ledezma and 
Daniel Ceballos, but also a group of students and other 
political prisoners, between 1977 and 1980 depending on who is 
doing the counting, who were being held by the Government of 
Venezuela for what we believe to be political purposes. We 
wanted to make it very clear that we do not agree with that and 
we thought it important that these people be released and 
allowed to participate in public life.
    And then finally connected to the broader purpose of 
elections, trying to convince Venezuela that it was in their 
interest to ensure international electoral observation of the 
upcoming elections in order to validate the results of the 
elections and allow all Venezuelans to understand that their 
votes were freely cast and counted in a valid fashion.
    These remain our principal objectives. We do have an 
electoral date. We were able to accomplish that. The political 
prisoners for the most part are still in prison. Some have been 
released, but we continue to advocate for them, and we have 
helped create a larger environment in Latin America where 
advocating for these political prisoners is now more common and 
more direct. We see it in the OAS. We see it in the Inter-
American Human Rights Commission, and we see it in a variety of 
other fora. And we continue to work with our partners around 
the issue of electoral observation.
    Senator Perdue. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez. Or go ahead, Senator Kaine. We have a 
very courteous committee.
    Senator Kaine. New Jersey civility is always appreciated. 
[Laughter.]
    Thank you, Mr. Chairman.
    Senator Menendez. Notwithstanding what Governor Christie 
said last night. [Laughter.]
    Senator Kaine. Thank you, Ambassador Shannon.
    A couple of points. Your long career has included service 
in some very dangerous areas. Talk about the evolving security 
conditions under which our folks have to operate around the 
globe and your sensitivity to those issues in this new role.
    Ambassador Shannon. Senator, thank you very much. I am a 
proud member of the Commonwealth of Virginia, and thank you for 
your service both as Governor and as Senator. We are very lucky 
to have you.
    I live in Crystal City and I take the bus to work, which 
means I get off on Constitution and 22nd and I walk up 22nd 
Street and enter the State Department through the C Street 
entrance. And aside from seeing the array of flags of all the 
countries with whom we have diplomatic relations, I also see on 
both walls, on either side, both the right and the left side of 
our entranceway, the names of all the Foreign Service officers, 
locally employed staff and family members who have given their 
lives in the service of the United States of America. So every 
day it is impressed upon me the danger of our job, but also the 
honor of serving and the importance of being able to make that 
kind of commitment. This is really a wall of honor for us, and 
it is also a wall of inspiration. But at the same time, we do 
not want to add any more names.
    The first name was Walter Palfrey who died. He was lost at 
sea in 1780, the first American diplomat lost in service. So 
from 1780 to today, we realize that we operate in a dangerous 
world.
    But as I noted, we are in an especially dangerous and 
dynamic moment around the globe. And so how we manage security 
and the kinds of structures we put in place are going to be key 
to how well we can protect our people and how well we can 
manage risk. And whether it is through our kind of high-threat 
post review process, whether it is through the determinations 
we make on whether or not we keep embassies open, whether it is 
how we determine expedited or, I mean, authorized departure or 
ordered departure in missions, these are all processes that 
have to be fluid. They have to be dynamic. They have to be 
agile, and they have to reflect the facts on the ground.
    But aside from that, I believe we need to do more in terms 
of training our officers to be their own security officers, in 
other words, allowing them to understand better the environment 
they are going to be in and allowing them the training and the 
tools necessary to protect themselves.
    The reality is we are an expeditionary diplomatic service. 
We have 275 diplomatic missions around the world. We have about 
10,000 American diplomats and civil servants posted around the 
world, and we have over 47,000 locally employed staff and we 
are responsible for them all.
    Senator Kaine. This is something that Senator Perdue and I 
have worked on a lot, and I hope that we will reach a point 
soon where we can give a green light to the State Department's 
long plan to build an enhanced security training facility for 
embassy personnel.
    A point on Iran, to pick up the comments that both the 
chair and ranking member made. When we were working on the 
Review Act, the administration's attitude really was that they 
did not think Congress should have a role in approving an Iran 
deal, which I thought was odd given the fact that the 
congressional sanctions were such an integral part of the 
negotiation.
    And I would just say I hope the administration will have a 
different attitude going forward in terms of Congress' role and 
oversight in implementation of the deal. The deal puts Congress 
right in the middle of it because in year 8, Congress is 
required under this deal to dismantle the congressional 
sanction statutes or we are in breach of the agreement, just as 
in year 8, the Iranian Parliament is required to permanently 
accept the additional protocol requirements or they are in 
breach of the agreement.
    There is not going to be a scenario where Congress will 
kind of be kept in the dark and uninvolved, and then suddenly 
in year 8, we will be asked, okay, repeal the sanctions 
statute. It is hard to get a Mothers Day resolution passed in 
two Houses of Congress. The notion that you would get 60 votes 
in the Senate and a majority vote in the House to repeal the 
sanction statutes in year 8, if there has not been very 
significant dialogue and trust building and assurances that 
Congress feels comfortable about--we will be in breach of the 
agreement if we do not have this really tight kind of 
communication, dialogue, and accepted level of congressional 
oversight over the implementation. So I hope that will be your 
philosophy in the position.
    Ambassador Shannon. Thank you for that. It will be my 
philosophy. And the challenge we are going to face as both an 
executive branch and the legislative branch is that 8 years is 
a long time, and we will pass through at least one other 
administration and maybe more. And so trying to find ways to 
ensure continuity of purpose and continuity of dialogue is 
going to be a central part of what we are going to do.
    Senator Kaine. One last. Just congratulations. It is 
premature but it is congratulations on the effort. The State 
Department's commitment to really aggressive diplomacy--we are 
aware of the Iran deal. We are aware of taking a new tack with 
Cuba. But also, the United States has played a really important 
role in accompanying the Government of Colombia in the 
negotiations with the FARC. And yesterday, I know there was an 
announcement by President Santos of, hey, we would hope to get 
to an internationally monitored ceasefire on New Year's Day.
    This is the last war that is going on in the Americas. I 
mean, there are plenty of problems in the Americas, but the 
notion of two continents without war, I am not sure that there 
has been a time in recorded history where the Americas have 
been without war. And we are close to that. And the United 
States has played a really important role in accompanying 
Colombia and being an advocate and an ally in those 
negotiations. And I just give credit to the State Department 
for this kind of focus on important multilateral diplomacy and 
appreciate your efforts there.
    Ambassador Shannon. Thank you for raising Colombia. And I 
want to thank the Congress and this committee in particular for 
the tremendous work that has been done over the years, along 
with the House and the Members of the House who have dedicated 
themselves to Colombia. It has really been a stellar group of 
people, and they have been a pleasure to work with and I have 
an opportunity to do it in so many different incarnations from 
the Director of the Office of Andean Affairs to Deputy 
Assistant Secretary. I worked on the Andes from my posting at 
the NSC and then as Assistant Secretary, and also as Counselor 
I have been involved in this.
    And you are right. If the Colombians are able to negotiate 
this deal, it will be the first time not only in living memory, 
but probably since the formation of most of the South American 
republics in the early 19th century that this hemisphere has 
been at peace, at least in terms of state-on-state wars and 
internal conflicts.
    But the challenge we are going to face--and in this we are 
going to be engaging with you, sir, and Mr. Chairman, and 
Senator Cardin, with this committee--is about how to ensure 
that having been Colombia's best partner in war, we are going 
to be Colombia's best partner in peace because Colombia is 
going to be--is a great nation, but it is going to be a greater 
nation. And with Brazil, it will be one of the defining powers 
of South America as an Andean power, as a Caribbean power, as 
an Amazonian power, and as a Pacific power, and as a country 
that will, if it is successful in the peace process, have 
consolidated its society and been able to extend the reach of 
the state into the plains of Colombia. It will be a major 
producer of oil and gas. It will be a major producer of 
minerals. It will be a major agricultural power. But it also 
has a very dynamic and entrepreneurial people who will be very, 
very important players throughout the hemisphere. So how we 
shape that, how we engage with them going forward is going to 
have a big impact on how successful we are in the hemisphere.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador, congratulations on your nomination. And 
considering your distinguished career, I think having your mom 
and dad and here and two FBI agents is over the top----
    [Laughter.]
    Senator Menendez [continuing]. In terms of guaranteeing 
your nomination.
    On a serious note, we had a good conversation. And I 
listened to some or your responses today, and I just want to 
quickly go over some ground because I think it is incredibly 
important.
    So would you agree with me that consultation with this 
committee and the Senate is an important factor in us having a 
united front on U.S. foreign policy?
    Ambassador Shannon. Yes, it is.
    Senator Menendez. Because what I have experienced, both as 
the former chairman of this committee and as a member, is that 
we get a lot of notification, but not a lot of consultation. 
And there is a difference. We may not agree at the result of 
consulting, but at least you will understand some thoughts of 
those of us who represent the Nation. And maybe there will be 
ways to achieve a common goal but to do it in a different way. 
And so what I have experienced is a lot of notification but not 
a lot of consultation. So I am glad to hear that you are 
committed to consultation.
    Secondly, do you agree with me that the TIP Report needs to 
be the gold standard?
    Ambassador Shannon. Yes, I do.
    Senator Menendez. I think I could probably not find anybody 
on this committee who believes that the last report did not 
meet that standard in the questions of Malaysia and Cuba and 
some other places. The justifications belie the facts, and the 
reality is that you cannot say that certain things in a 
reporting period that happened to be good for that country will 
be included even though they are beyond the reporting period, 
and certain things that are bad that are also beyond the 
reporting period do not get included. So either we include 
everything beyond the reporting period, good and bad, or we 
stick to the reporting period, but you cannot go beyond the 
reporting period for what is good but not beyond the reporting 
period for what is bad.
    And I am referring particularly to Malaysia and the mass 
graves that we found with the Rohingya. So that was not 
considered, what Malaysia was doing in that context, but some 
passage of a law that was not even yet in force was considered.
    So we need to make that the gold standard, and I hope that 
we can--understanding the pressures within the Department from 
regional bureaus and whatnot, but it just does not work the way 
it worked the last time and it undermines our credibility in 
trafficking in persons.
    Thirdly, would you agree with me that we must respond to 
violations by Iran of whether it is its nuclear agreement or 
Security Council resolutions with significant responses, or 
else we will be down a slippery slope in terms of what they 
think they can get away with?
    Ambassador Shannon. Yes, I do.
    Senator Menendez. So I say that because regardless--and 
there are members of this committee that have voted both ways. 
I oppose the agreement. I think it is aspirational. I hope it 
works now that that is the law. But by the same token, I do not 
think any of it can work if Iran thinks it can get away with 
violating, as it largely has done for the past decade and a 
half in violating international--United Nations Security 
Council resolutions, international law, and still largely 
developed a nuclear program.
    If we are going to get anything out of this agreement, it 
has to be enforced. And with the ballistic missile test that 
they had, I do not think you are going to end up with a U.N. 
resolution that is going to sanction them because Russia will 
probably negate it with its veto. So we have to be thinking 
about how we are going to respond to that otherwise we are 
headed down a slippery slope. And I know this will not be the 
mainstay of your portfolio, but the reality is you are going to 
have as the third-highest ranking person at the State 
Department some say in this, and I hope that you will hold the 
view that you have publicly described here saying it is 
important within the deliberations of the Department.
    Fourth, Venezuela. You and I had a long discussion of this. 
And I have to be honest with you. I appreciate what you were 
trying to do when you met with Diosdado Cabello, who is 
supposedly by some of our agencies described as someone who is 
involved in narcotrafficking. I also realize he has an elected 
position inside of Venezuela. But that is a question for the 
future: as a policy how far do we go with individuals who, 
while they may hold a position, are involved in this context of 
narcotrafficking?
    But in Venezuela, you have a process in which we do not 
have yet international observers. You have a sham trial where a 
prosecutor ultimately flees--one of the prosecutor flees the 
country and says that he was under pressure to ultimately 
pursue the case in the manner in which he did. Lopez is 
convicted in a sham trial, I think 13 years in jail. And you 
have a series of other human rights activists and political 
dissidents jailed. And you have the Maduro regime saying 
publicly in essence, well, we are going to win the elections, 
which basically means we are going to win it one way or the 
other. The polls do not indicate that we will at the ballot 
box, but we are going to win it.
    So my concern is--and the thing I think you do bring to 
this job that others do not have is your combination of Latin 
America and Africa experience.
    But my concern is that we are not willing to challenge 
regimes, whether it be in Venezuela or in Cuba where we have 
ceded everything to the regime and have seen nothing--nothing--
in terms of human rights and democracy issues.
    So talk to me about challenging a regime when the diplomacy 
has not achieved what we want. You know, we passed this law 
that came out of this committee on Venezuela and sanctions. The 
President invoked some it. There is still a lot more that could 
be invoked, but when is the demarcation in which we say, okay, 
our diplomacy has not worked at this point. How do we back it 
up with some strength?
    Ambassador Shannon. Thank you very much, Senator. And let 
me thank you for your tremendous commitment to Latin America 
and also to the State Department and diversity within the State 
Department. It has been an important motivator for us, an 
important driver of how we shape the diplomats of the future.
    In regard to the TIP Report, let me reiterate that I am 
committed to addressing the concerns of this committee and 
members of the committee have expressed their concerns to me. 
As I noted previously, it is very worrisome for me that a 
report that should be a gold standard is seen as not being 
that. And so I will do everything I can to address those 
concerns and ensure that we are examining countries under the 
rubric of the report with all the rigor that is required by 
law.
    And in regard to Iran violations, sir, I can guarantee you 
that we will be responding to them. We recognize, as important 
as the JCPOA is, it has a set of sanctions tied to it that are 
nuclear-related, but there are sanctions related to ballistic 
missiles, to human rights, and to terrorism. And we will 
continue to pursue those sanctions and pursue violations 
whenever we see them. We understand that our relationship with 
Iran is a complicated one, but again, our success in the JCPOA 
and its implementation will only happen if we show a clear 
willingness to pursue violations elsewhere under other 
sanctions regimes.
    And in regard to Venezuela, we did have a good conversation 
yesterday, and I appreciated the conversation. I appreciated 
your point of view. I understand it and I appreciate the 
concerns that others have expressed.
    As we look at what is next in Venezuela, so much of our own 
relationship with Venezuela will depend on what happens around 
the legislative elections and what happens around the issue of 
political prisoners. When I met with Diosdado Caballo, as I 
noted to you earlier, it was with the purpose, first of all, of 
winning from them an electoral date for legislative assembly 
elections, which we thought was important and essential, first 
of all, to create a political process that would allow the 
Venezuelan people to express themselves but also to begin to 
create a larger environment for dialogue inside of Venezuela.
    Its secondary purpose was to save the life of Leopoldo 
Lopez, who at the time was in the fourth week of a hunger 
strike, and we were looking for an action by the Venezuelan 
Government that would convince Lopez to come off his strike. We 
believe that Lopez, along with the other political prisoners 
being held, are an essential part of a broader solution to the 
kinds of internal challenges that Venezuela faces today, and we 
will continue to advocate for his release, as we have done over 
time.
    It should be noted that as we have engaged with Venezuela, 
we have never backed off our criticism of Venezuela regarding 
some of its political behavior and activity. And we have 
expressed our concern about the politicization of the judiciary 
and the continued holding of political prisoners. And we will 
continue to do so.
    As we look toward the elections, the ability of the 
elections to be perceived as free elections and the vote count 
as valid is going to be a very important part of how we manage 
the next step in the relationship. And in that regard, the 
legislation that you worked on and that other members of this 
committee and Senate worked on will be an important tool for 
us, and we will use it if necessary.
    Senator Menendez. I hope you use the tool.
    I look forward to supporting your confirmation before the 
committee and the Senate.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Thank you, Ambassador, for your service. Thank you to your 
family for sustaining and supporting Ambassador Shannon's 
service over so many years in many challenging environments. I 
concur with my colleague from New Jersey that your long service 
in Latin America and in Africa brings a particular and needed 
strength. Your service as a member of the career Foreign 
Service also brings an important and vital perspective.
    So let me just broadly reference three questions, and then 
you take as much time as you wish and allocate your time 
accordingly.
    I would be interested in hearing on behalf of the 10,000 
Foreign Service and Civil Service employees of the Department 
of State what you think are the most important, most needed 
steps to continue to attract and retain and motivate the best 
and brightest to serve in these difficult and demanding and 
important posts around the world.
    I am also interested--you succeed Wendy Sherman. Hopefully 
you will be confirmed. I will support your confirmation. She 
placed a real focus on peacekeeping. Peacekeeping is difficult 
business. It is expensive. It is full of complications. There 
is an African standby force that is in the early stages of 
being perhaps ready to actually serve on the continent. They 
have been doing some recent exercises in South Africa, and I 
would be interested in how you see the future of peacekeeping 
and how we make it sustainable from a cost perspective.
    And then last, I am concerned about how we support economic 
growth in Africa while also supporting democracy and 
governance. There has been a hotly contested election in 
Tanzania. The results were just announced in the last hour. 
They were invalidated in Zanzibar earlier today. We have a 
number of critical other elections this year. How do we balance 
those two, promoting economic growth and development, while 
still advocating for our values over the values of some of our 
competitors in Africa?
    Ambassador Shannon. Well, thank you very much, Senator. I 
appreciate the questions. And let me thank you for the trip you 
made to the State Department to meet with some of our mid-level 
officers. It was a great experience for them. But we really 
appreciated the respect you showed us and we look forward to 
inviting you back. So thank you for that.
    You know, in regard to your first question, how to attract 
and keep the best people, that is something we struggle with 
every day. Luckily we have a really interesting portfolio, and 
so we tend to attract people who are smart, motivated, and 
expeditionary in mindset. They want to go places and they want 
to do things. And so that is important to us.
    But the challenges we face are real. The challenges that 
dual-career families face in the Foreign Service, the 
challenges that families with children with special needs face, 
and then the broader security environment that we spoke about 
earlier also affects how people understand the Foreign Service 
and the degree to which they enter the Foreign Service or stay 
as officers.
    We are really at this point in time going through a 
generational change in the Foreign Service. Sixty percent of 
the Foreign Service--nearly 60 percent--it is about 57-
something percent of the Foreign Service has served for 10 
years or less. And this is quite remarkable. It means that we 
have a whole cadre of younger officers who are going to be our 
next generation of leaders who have served in the Foreign 
Service during a period of combat in Iraq and Afghanistan and a 
larger global struggle against terrorism. And in many 
instances, some of these classes have gone in large numbers to 
Iraq, Afghanistan, Pakistan, and other areas first where they 
are unaccompanied postings but secondly where the challenges 
they face are quite significant. And how we help these officers 
understand the larger world, how we mentor them, how we train 
them, how we enhance their language capability is going to be a 
big part of our success in the future.
    And so one of the assignments I am going to take on myself 
is really a mentoring assignment, and it is intent on engaging 
with our geographic bureaus, with the National Foreign Affairs 
Training Center, with the Foreign Service Institute, and with 
the Secretary to ensure that he can leave behind a legacy of 
enhanced language training, enhanced regional studies, and an 
ability to do more in the field to help officers become 
familiar with the areas they are working on and areas they want 
to continue to work on.
    But let me share one quick anecdote with you. As I go 
around and talk to younger officers, especially in the Middle 
East, one of their biggest concerns is security but not whether 
they are going to be okay. Their concern is are they going to 
be able to do their job. And this is what we talked about 
earlier. They want the tools to be able to do their job, and 
that means a security environment that protects them but also 
their ability to understand and interpret the environment they 
are in. And in this regard, we have got a lot of work to do 
because there are some places that are just deadly for us, and 
we just either cannot go there or we have to go there under 
very careful conditions.
    But again, this is something I am really focused on because 
this is going to have a big impact on some of our best and 
brightest as to whether they stay. If they think their career 
is going to be spent in a container or behind an embassy wall 
and if they can only go out in force and with interpreters, 
they are not going to stay. So we have to find a way to deal 
with this.
    And then finally, Africa is a special interest of mine. I 
have served in Washington on African affairs but also in the 
field on African affairs, and I have been able to travel to 
Africa a lot.
    The economic growth side is really important for this 
continent. This is the continent of the 21st century, and 
President Obama, through his Africa Leaders Summit, highlighted 
the importance of commercial engagement and presented a 
different vision of Africa to the American people, one of 
opportunity and growth. And as we look into the future, we need 
to understand that the Chinese have figured this out and the 
Chinese are present in Africa in a big way. And so we have to 
be present in a big way. And that means looking for ways to 
push American businesses, American investment and create the 
connectivity around economic growth that is necessary for 
Africa to continue to grow at the rate that it is growing. I 
think it is the fastest growing continent in the world in terms 
of commerce and investment.
    But that said, the governance issues are really striking in 
different parts of Africa. And the issues we are facing, 
whether it be in Tanzania, whether it be in the DRC, whether it 
be in Burundi, whether it be in Rwanda or beyond, how leaders 
understand their role as elected leaders, how they understand 
their ability to perpetuate themselves in power, and the degree 
to which they use state structures to further themselves in 
power and do not address the transparency, accountability, and 
anticorruption issues that are really going to be the basis for 
long-term economic growth and development is going to be key. 
And it has to be a central part of our engagement in Africa. 
And I believe it is.
    And I think with our Assistant Secretary, Linda Thomas 
Greenfield, we have been really dynamic, really pushing hard on 
these issues, not always successfully because of the nature of 
some of the countries that we have been working in, but we have 
not given up. And I can assure you that governance is going to 
be a big part of how we engage in Africa because absent the 
right kind of governance economic growth is not going to have 
the social impact it needs to have.
    Senator Coons. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    As you know, there will be some followup questions, and we 
will keep the record open until Monday for both of the 
nominees.
    But at this point, again, thank you for your willingness to 
serve, for having your family here, for their service to our 
country, and we look forward to your confirmation.
    Ambassador Shannon. Thank you very much. I am very 
grateful.
    The Chairman. Yes, sir.
    Next we will consider the nomination of Laura Holgate, 
nominee to be U.S. Representative to the Vienna Office of the 
United Nations and U.S. Representative to the International 
Atomic Energy, commonly called the IAEA.
    This role requires an agile ambassador capable of 
representing U.S. positions with a diverse array of U.N. 
organizations, from the U.N. Office on Drugs and Crime to the 
U.N. Division of Management, the Comprehensive Test Ban Treaty 
Organization, of which we are not a party, the Wassernaar 
Arrangement, and the U.N. Commission on International Trade 
Law, among others.
    Perhaps the most visible to this committee given the 
ongoing engagement on the JCPOA with Iran will be the nominee's 
representation of the United States at the International Atomic 
Energy Agency. I recognize that you, Ms. Holgate, have 
dedicated your career, as we have discussed privately, to 
promoting nuclear security and establishing an environment that 
staunches the spread of nuclear materials.
    But the challenges of the position may be daunting. You 
will be called upon to hold a strong line in the face of 
pressure from our partners who, in order to open economic 
relations with Iran, may seek to close the door on old 
allegations and turn a blind eye to previous military 
dimensions of the program that may provide indicators necessary 
for the IAEA to monitor the program going forward.
    You may be called upon to defend key U.S. positions in the 
face of opposition from the nonaligned movement. You may have 
to stand alone to adequately defend U.S. national security 
interests.
    I hope you will explain how you intend to fulfill these 
obligations in this role and the expectations you have for your 
ability to successfully represent the United States.
    While we have the opportunity, I would also like for you to 
discuss our Government's current efforts to counter nuclear 
smuggling and how you may use this position, if confirmed, to 
further ensure the security of nuclear material globally.
    I appreciate your attendance before the committee today and 
look forward to growing our relationship, should you be 
confirmed.
    With that, I would like to recognize our distinguished 
ranking member, Senator Cardin.
    Senator Cardin. Well, let me also welcome Laura Holgate. 
Thank you very much for your long-standing public service. As 
was pointed out with the previous witness, this is a family 
commitment. We thank you and your family for your willingness 
to serve our country in this critically important position.
    You bring a host of qualifications to this nomination, a 
senior position at the Department of Energy and Department of 
Defense, a career that prevents states and terrorists from 
acquiring and using weapons of mass destruction. You are 
currently the Senior Director of the Weapons of Mass 
Destruction Terrorism and Threat Reduction at the National 
Security Council. You come well prepared for the challenges in 
Vienna. And I say that because, yes, there are the direct 
responsibilities that you have in the organizations in Vienna 
under the United Nations and the IAEA and others, but also 
working with two other very important missions that we have. 
The host mission for Austria, as well as the OSCE mission that 
you and I had a chance to talk about, all are housed in Vienna. 
So you are part of a diplomatic team that we have in a 
critically important place where major decisions are being 
made.
    Obviously, the focus today is very much on the 
responsibilities and the implementation of the Iran agreement 
by the IAEA. And as we talked privately, what I will repeat now 
and as I also pointed out to Ambassador Shannon, your openness 
with us is critically important, and I appreciate the 
commitments that you have made in that regard.
    Mr. Chairman, I am also pleased to note that Sam Nunn, a 
former member of this body, who worked closely with Laura 
Holgate during the 8 years she spent at the Nuclear Threat 
Initiative, has written a letter on her behalf touting Mrs. 
Holgate. And I quote, ``super knowledge, diplomatic skills, and 
strong passion for reducing global dangers.'' And I would 
request that that letter be made part of our record.
    The Chairman. Without objection.


    [The information was not available at the print deadline.]


    The Chairman. Thank you, Senator Cardin.
    We will now turn to the nominee. Our second nominee, as we 
have mentioned, is Laura Holgate who has been nominated to 
serve as Ambassador and U.S. Representative to the Vienna 
Office of the United Nations and the International Atomic 
Energy Agency. Currently Ms. Holgate has advised the President 
for over 6 years in the position of Special Assistant to the 
President and Senior Director for Weapons of Mass Destruction, 
Terrorism, and Threat Reduction at the National Security 
Council.
    She received her bachelor of arts from Princeton University 
and a master's in science from the Massachusetts Institute of 
Technology.
    We welcome you. If you could summarize your thoughts in 
about 5 minutes, we will look forward to questions. And again, 
congratulations on your nomination.

   STATEMENT OF LAURA S.H. HOLGATE, NOMINATED TO BE THE U.S. 
REPRESENTATIVE TO THE INTERNATIONAL ATOMIC ENERGY AGENCY AND TO 
  BE THE U.S. REPRESENTATIVE TO THE VIENNA OFFICE OF THE U.N.

    Ms. Holgate. Thank you very much, Mr. Chairman, Ranking 
Member Cardin, members of the committee. I am honored to appear 
before you today as the President's nominee to serve as the 
U.S. Permanent Representative to the Vienna offices of the 
United Nations, the International Atomic Energy Agency, and 
other international organizations in Vienna. I am grateful to 
President Obama and to Secretary Kerry for the confidence they 
have placed in me.
    This is a critical moment for the United States interests 
in the IAEA and the other U.N. offices in Vienna. Full 
implementation of the Joint Comprehensive Plan of Action with 
Iran, successful transition of the Nuclear Security Summit's 
work to secure and reduce global stockpiles of nuclear 
materials to the relevant, enduring international institutions, 
safe and secure expansion of nuclear energy and other peaceful 
nuclear technologies, and innovative peaceful applications of 
space science demand active, focused leadership and engagement 
by the United States to promote our national interests and to 
advance our contributions towards shared global priorities.
    My experience inside and outside the U.S. Government has 
prepared me to play this vital role in Vienna. I have worked on 
reducing nuclear, biological, and chemical threats since 1989. 
I have served a combined 14 years in the Department of Defense, 
the Department of Energy, and at the National Security Council 
where I led programs and developed policies to keep nuclear 
materials out of terrorist hands, to destroy chemical weapons 
in Russia, Libya, and Syria, and to prevent bioterrorism. For 8 
years, I headed the nongovernment Nuclear Threat Initiative's 
programs in the former Soviet Union and pioneered projects such 
as the IAEA's low enriched uranium fuel bank. Most relevant to 
the position for which I am being considered, I have led the 
preparation of four nuclear security summits, working closely 
with counterparts from 52 diverse countries and four 
international organizations, including the United Nations and 
the IAEA. Each of these positions has contributed to my ability 
to represent the United States and the President with authority 
and respect.
    If I may, Mr. Chairman, I would like to introduce to you 
and the committee three very special people who have joined me 
here today. My husband, Rick Holgate, has for 27 years 
steadfastly supported my career even as he has built his own 
impressive accomplishments in Government service and in the 
private sector. I am proud and grateful for his encouragement 
and partnership as we consider this new opportunity to serve.
    My parents, Susan and Bert Hayes, are here from Richmond as 
well. My father, as a TWA pilot, opened my eyes, ears, and mind 
to the wide world beyond Overland Park, Kansas. And my mother 
set the example of opening our doors and our hearts to people 
who are different from us. These early influences launched me 
on the path to today's hearing, and I hope to honor their faith 
in me by my service.
    And I deeply appreciate the support of friends and 
colleagues who are watching these proceedings today.
    Mr. Chairman, if I am confirmed in this position, I pledge 
to strengthen and broaden the partnerships with other member 
states and with the U.N. agencies in Vienna and further develop 
the coalitions that we need to achieve U.S. priorities. Key 
among these goals is that the IAEA has the tools it needs to 
monitor implementation of the P5+1/Iran Joint Comprehensive 
Plan of Action. Going forward, the IAEA, with its proven record 
of technical expertise, offers us an agency well placed to 
ensure robust implementation. I pledge to play my role in 
keeping Congress informed and engaged as this implementation 
process proceeds.
    Another opportunity I see is to leverage the U.N. Office of 
Drugs and Crime's technical assistance to counter and prevent 
terrorism and trafficking through training and other support 
for judges and prosecutors especially those in high-threat 
regions and countries. UNODC's efforts complement our own 
counterterrorism objectives and reach countries we may not be 
able to engage directly.
    Finally, if confirmed, I will press international 
organizations in Vienna to continue to make progress on 
management reforms, transparency, and fairness. I will 
encourage intensified efforts towards achieving greater 
diversity, including at the senior and policymaking levels. I 
will continue the efforts of my predecessors to strongly 
support the hiring of qualified American citizens to these 
organizations.
    Mr. Chairman, the specialized and technical agencies in 
Vienna foster activities and technologies that affect the lives 
of every citizen every day from combating the spread of nuclear 
weapons and human and arms trafficking, to harnessing the power 
of the atom to promote human health and reduce and eliminate 
hunger, to utilizing space for communication, disaster early 
warning, and exploration and research.
    If confirmed, I would work in close consultation with this 
committee and the Congress to ensure that U.S. values and 
priorities are fully reflected in our positions and that U.S. 
contributions and resources are expended with care. We owe the 
American people and the people all over the world no less.
    I thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of Ms. Holgate follows:]

                Prepared Statement of Laura S.H. Holgate

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
I am honored to appear before you today as the President's nominee to 
serve as the U.S. Permanent Representative to the United Nations 
(U.N.), the International Atomic Energy Agency (IAEA) and other 
International Organizations in Vienna. I am grateful to President Obama 
and to Secretary Kerry for the confidence they have placed in me.
    This is a critical moment for the United States interests in the 
IAEA and the other U.N. offices in Vienna. Full implementation of the 
Joint Comprehensive Plan of Action with Iran, successful transition of 
the Nuclear Security Summit's legacy of achievement to the relevant 
enduring international institutions, safe and secure expansion of 
nuclear energy and other peaceful nuclear technologies, effective 
efforts to combat transnational crime and corruption, and innovative 
peaceful applications of space science demand active, focused 
leadership and engagement by the United States to promote our national 
interests and to advance our contributions toward shared global 
priorities.
    My experience inside and outside the United States Government has 
prepared me to play this vital role in Vienna at this critical time. I 
have worked on reducing nuclear, biological, and chemical threats since 
1989, when I wrote my MIT masters thesis on chemical weapons 
destruction. I was part of the team led by Ash Carter and Bill Perry in 
1991 that conceived what became the landmark Nunn-Lugar Cooperative 
Threat Reduction Program. I have served a combined 14 years in the 
Department of Defense, the Department of Energy, and at the National 
Security Council, where I led programs and developed policies to keep 
nuclear materials out of terrorist hands, to destroy chemical weapons 
in Russia, Libya, and Syria, and to prevent bioterrorism. I was a 
founding member of the nongovernment Nuclear Threat Initiative, where 
for 8 years I headed the programs focused on Russia and New Independent 
States and pioneered projects that gave rise to major international 
outcomes such as the Department of Energy's Global Threat Reduction 
Initiative and the IAEA's low enriched uranium fuel bank. In my current 
position on the National Security Council staff, I oversee and 
coordinate the development of national policies and programs to reduce 
global threats from nuclear, biological, and chemical weapons; detect, 
identify, secure, and eliminate nuclear materials; prevent malicious 
use of biotechnology; and secure the civilian nuclear fuel cycle. Most 
relevant to the position for which I am being considered, I have led 
the preparation for four Nuclear Security summits, working closely with 
counterparts from 52 diverse countries and four international 
organizations, including the IAEA. Each of these positions has 
contributed to my knowledge, experience, relationships across parties 
and around the world, and enhanced my ability to represent the United 
States and the President with authority and respect.
    Many of the U.N. agencies and organizations headquartered in Vienna 
have emerged as key partners for the United States as our country seeks 
to resolve some of the most difficult challenges and threats to our own 
national interests. The IAEA and the U.N. Office on Drugs and Crime, 
for example, have proven track records in providing the kind of 
expertise, technical knowledge, and credibility that the United States 
needs in its tool box as we lead the world in forging international 
responses to the most urgent and critical threats to international 
peace and security.
    If confirmed, I fully recognize that I will be leading American 
engagement with these agencies at a critical time. I see an array of 
challenges that will require strong U.S. leadership so that the work of 
the Vienna agencies continues to fully reflect U.S. values and 
priorities. At the same time, I also see numerous opportunities for the 
United States to promote sound management practices; transparency; 
accountability; and good stewardship of U.S. and other Member State 
contributions. Ultimately, I see great potential for the United States 
to use its presence among the U.N. agencies in Vienna to promote and 
advance strong partnerships and coordination with our friends and 
allies in a complex and often dangerous world.
    In this context, I would like to share with you today more details 
regarding what I see as these challenges and opportunities as well as 
what my priorities would be if I have the honor to be confirmed for 
this important post. But before I do that, Mr. Chairman, I would like 
to pause briefly to introduce to you and the committee a few very 
special people who have joined me here today. My husband, Rick Holgate, 
has for 27 years steadfastly supported my career even as he has built 
his own impressive accomplishments in government service and in the 
private sector. I am grateful for his encouragement and partnership as 
we consider this new opportunity to serve. My parents, Susan and Bert 
Hayes, instilled in me a love of country and a commitment to excellence 
that continue to motivate me, and they have set inspiring examples of 
service in their own lives and in how they raised me and my sister, 
Gregg. And I am honored and humbled by the support of friends and 
colleagues who are watching these proceedings today.
    Mr. Chairman, if I am confirmed in this position, I pledge to 
strengthen and broaden the partnerships with other member states and 
with the Vienna U.N. agencies, and further develop the coalitions that 
we need to achieve U.S. priorities. Key among these goals is to work to 
make sure the IAEA has the mandate and the capacity to address evolving 
challenges and the greater demands being placed on it. In particular, 
the IAEA must have the tools it needs to monitor implementation of the 
P5+1/Iran Joint Comprehensive Plan of Action (JCPOA). Going forward, 
the IAEA, with its proven record of technical expertise, offers us an 
agency well-placed to ensure appropriate implementation.
    Another opportunity I see is to leverage the U.N. Office on Drugs 
and Crime (UNODC) to better address today's breaking and long-term 
crises. I would seek, in concert with other member states, to focus the 
UNODC's technical skills and expertise efficiently on threats that 
directly affect our interests, including anticorruption and the rule of 
law, border security, combating trafficking of persons and migrant 
smuggling, and counterpiracy. This will involve identifying threats and 
applying UNODC's resources in the regions in which they may be needed 
most.
    A key challenge is to fend off other countries' attempts to distort 
the important technical and scientific work of key international 
organizations such as the IAEA and the U.N. Committee on the Peaceful 
Uses of Outer Space (UNCOPUOS). These organizations' work should not be 
stymied by grandstanding on issues such as the procedure for approving 
Israel's application for membership.
    Finally, if confirmed, I will press international organizations in 
Vienna to continue to make progress in management reforms, 
transparency, and fairness. I will encourage intensified efforts toward 
achieving greater diversity, including at the senior and policymaking 
levels. I will continue the efforts of my predecessors to strongly 
support the hiring of qualified American citizens in these 
organizations.
    I would like to briefly highlight just a few examples of the work 
being done by international organizations in Vienna--work that affects 
not only our national security but also the everyday lives of not only 
our citizens but of people around the world.
The International Atomic Energy Agency
    Since its inception in 1958, the IAEA has been central to 
international nuclear nonproliferation regime, encouraging peaceful 
uses of nuclear technology while preventing the spread of nuclear 
weapons. Today, the IAEA will need our support more than ever as it 
steps up to meet the huge challenge of monitoring implementation of the 
Joint Comprehensive Plan of Action.
    The IAEA's central role is to implement monitoring and verification 
as set forth in the JCPOA. On October 15, the IAEA reported that 
activities set out in the IAEA/Iran ``Roadmap for the clarification of 
past and present outstanding issues regarding Iran's nuclear program'' 
were completed. The IAEA indicated that by December 15, 2015, the 
Director General will provide, for action by the Board of Governors, 
the final assessment on the resolution of all past and present 
outstanding issues, as set out in the annex of the 2011 Director 
General's report. I know the JCPOA is an issue of intense interest to 
the members of this committee, the Congress, and the public, and if 
confirmed, I commit to keep an open and candid dialogue with the 
Congress.
    In addition to the JCPOA, the IAEA has been nothing short of 
remarkable in its successful efforts to adapt to the evolving 
challenges of its safeguards mandate. The IAEA has safeguards 
agreements with 182 countries, under which it verifies that nuclear 
material is not diverted and nuclear facilities are not misused for 
weapons. Over the last two decades, 126 countries have concluded 
Additional Protocols with the IAEA, designed to enable the IAEA to 
confirm that there are no undeclared nuclear materials or activities in 
the country as a whole. The United States works closely with the IAEA 
Secretariat and with other IAEA Member States to ensure that the Agency 
has the financial, technical, and human resources and the political 
support it needs to fulfill those demanding responsibilities. And 
Congress plays a critical role in funding these programs.
    Equally important is our collaboration with IAEA on nuclear 
security. The effort to prevent a terrorist from acquiring a nuclear 
weapon has been a top priority for this administration. The President's 
Nuclear Security Summit, for which I have had the honor to serve as 
U.S. Sherpa, has raised the issue of nuclear security to the head of 
state level which has, in turn, produced major national commitments to 
minimize and secure nuclear materials, as well as increase efforts to 
interdict such materials outside of regulatory control.The summit has 
strengthened the global nuclear security architecture through support 
for international institutions and initiatives, as well as creating new 
standards for the security of nuclear materials. As we prepare to host 
the final Nuclear Security Summit, this spring, it is more evident than 
ever that the IAEA will play a central role in coordinating 
international institutions which will continue the work undertaken in 
the summit process. If confirmed, I would promote the IAEA's role in 
coordinating nuclear security activities worldwide and maintaining the 
momentum created by the summit process on this important issue.
    Meanwhile, as global demand for nuclear power grows, the demands on 
the IAEA to help promote strong national nuclear safety standards will 
accelerate. The Fukushima Daiichi disaster in March 2011 demonstrated 
once again that no nation--no matter how prepared or technically 
advanced--is invulnerable to disasters involving nuclear material. In 
the wake of these kinds of crises--and to prevent future disasters--the 
IAEA is there to assist member states in managing risk and offering 
technical guidance to build safety capacity.
    More broadly, the IAEA plays a key role in assessing member states' 
power needs and infrastructure capacity, and in identifying where 
capacity needs to be improved before nuclear power becomes a viable 
option. Also, the IAEA is engaged in the establishment of a Low 
Enriched Uranium (LEU) Fuel Bank in Kazakhstan. This Bank will serve 
both as an assurance of supply mechanism so that countries can access 
peaceful power and as a disincentive to the spread of enrichment 
technology to countries that do not already have it. It underlines the 
central roles the IAEA plays in both the promotion and nonproliferation 
aspects of nuclear energy.
    Finally, in addition to nuclear safeguards and nuclear safety and 
security, the IAEA's third core mandate relates to fostering the 
peaceful uses of nuclear energy, science, and technology for all member 
states. During the last several years, the IAEA has been engaged in 
essential work in promoting human health, agriculture and food 
security, clean water, and the environment through nuclear techniques 
and its partnership with U.N. and other international organizations.
    If confirmed, I would work toward adapting the IAEA's efforts in 
promoting peaceful uses of nuclear power; continue to address the 
evolving needs and interests of member states in nuclear power; and to 
a fully informed decisions by member states embarking on such a course.
The U.N. Office on Drugs and Crime
    The UNODC is also a key U.S. partner in countering terrorism; 
strengthening criminal justice systems and respect for the rule of law; 
and fighting crime. UNODC has shown leadership in addressing these 
threats and in building member states' capacity to address them. In 
East and West Africa; for example, U.S. funding to UNODC has shown 
tangible results in stemming human trafficking and migrant smuggling. 
There and elsewhere, UNODC has also led international efforts to 
address wildlife trafficking, environmental crime, and cybercrime. 
Finally, UNODC's Terrorism Prevention Branch also plays an important 
role in providing technical assistance to enhance member states 
capacities to counter and prevent terrorism. Since 2002, the United 
States and other partners have worked closely with this program to 
develop and strengthen its technical assistance programs for criminal 
justice sector officials, especially those in high threat regions and 
countries. UNODC's efforts complement our counterterrorism objectives. 
If confirmed, I would look to expand on this good work, and to increase 
efforts to address the global phenomena of foreign terrorist fighters 
and illicit diversion of precursor chemicals that could be used to 
build improvised explosive devices.
Other organizations
    Other Vienna-based organizations also play important roles and 
touch the lives of our citizens in fundamental ways.
    For example, the U.N. Office on Outer Space Affairs (UNOOSA) in 
Vienna implements the decisions of the United Nations General Assembly 
and of the UNCOPUOS). These are traditionally consensus-based 
organizations that focus on ensuring that satellite capabilities and 
space technology operate peacefully, safely, and for the broad benefit 
of all. A challenge we face within these types of agencies is 
occasional attempts by certain member states to politicize their work 
or decisionmaking. If confirmed, I would strive for these cooperative, 
technical organizations to continue to work smoothly in the performance 
of their mandates, free from politicization that could undermine their 
consensus-based procedures.
    Finally, if confirmed, I would also serve as the Permanent 
Representative of the United States to the Preparatory Commission for 
the Comprehensive Nuclear-Test-Ban Treaty Organization. The United 
States continues to engage with member states of the Preparatory 
Commission and with its Provisional Technical Secretariat to complete 
the verification regime that would be required to implement the CTBT 
should it enter into force. The International Monitoring System (IMS), 
the heart of that regime, is nearly complete. It is a technically 
advanced, global network of sensors that can detect even relatively 
low-yield nuclear explosions. The IMS has enjoyed the financial and 
diplomatic support of every administration since the United States 
signed the Treaty in 1996. Although data from the IMS is not used to 
monitor compliance with the treaty, as it has not yet entered into 
force, it is noteworthy that a still incomplete IMS successfully 
detected all three North Korean nuclear explosive tests in 2006, 2009, 
and 2013.
Conclusion
    The specialized and technical agencies in Vienna foster activities 
and technologies that affect the lives of every citizen every day--from 
combating proliferation and human and arms trafficking, to harnessing 
the power of the atom to promote human health and reduce and eliminate 
hunger, to addressing climate change, to utilizing space for 
communication, disaster early warning, and exploration and research.
    I believe that strong U.S. engagement, partnership, and leadership 
in these organizations is vitally important not only to our national 
security but also to the individual well-being of each of our citizens, 
and the prospect of a better life for all.
    If confirmed, I would work in close consultation with Congress to 
ensure that U.S. values and priorities are fully reflected in our 
positions, and that U.S. contributions and resources are expended with 
care.
    I recognize that there may be many areas of disagreement and 
contention within these organizations and among their memberships, but 
I believe that it is only through strong U.S. engagement and leadership 
in these multilateral technical forums that can they achieve a positive 
and lasting impact on the welfare and quality of life of our generation 
and those to come.
    Mr. Chairman, I would like to close with a personal note. Growing 
up in Overland Park, KS, this kind of opportunity to serve my country 
was unimaginable: I had no idea what an ambassador did, and I was 27 
before I met one. I credit my parents for the upbringing that created 
this occasion. My airline pilot father opened my eyes, ears, and mind 
to the wide world beyond the American Midwest, and my mother set the 
example of opening our doors and our hearts to people who were 
different from us. Most importantly, they offered support, 
encouragement and pride as I slowly formed the notion that I might do 
good in the world by figuring out ways to prevent nuclear war, which, 
when I was a Princeton undergraduate during the cold war, seemed like 
it might break forth at any moment. The end of the cold war coincided 
with my first jobs as a national security professional, and many new 
WMD threats begin to crowd to the forefront--the collapse of a nuclear 
superpower, the advances in biology that made pathogens both more 
dangerous and more accessible, and, as we turned the corner into a new 
millennium, the stark reality of terrorists with apocalyptic ambitions 
and the skills and resources to achieve them. In the years since the 
cold war, we have created new tools--programs, technology, 
organizations, partnerships--to deal with these new and pressing 
threats. It has been my privilege to have helped invent some of these 
tools, and to have used them to reduce these threats and keep America 
safe. Mr. Chairman, if confirmed, I would make the most of the 
opportunity to continue this commitment by vigorously promoting U.S. 
interests at the IAEA, and at the U.N. and other international 
organizations in Vienna.

    The Chairman. Well, thank you very much.
    If you would, explain--I know we have a gentleman, former 
Ambassador Stephen Mull, who will be overseeing the 
implementation. How will your role and his role interact?
    Ms. Holgate. Thank you, sir.
    If confirmed, I would be part of Ambassador Mull's team of 
interagency partners. The current Charge in the UNV mission 
participates in those conversations, those interagency meetings 
remotely and is in regular contact with Ambassador Mull. I 
would expect to continue and intensify that level of engagement 
in the interagency policy process. And the role in Vienna is to 
be the eyes and ears on the ground of what is going on, not 
just the formal presentation of information from the 
Secretariat but understanding the trends, the issues, the mood, 
how the conversations are going, and being sure that those are 
reported back into the U.S. policy process, also being alert to 
opportunities to improve activities or steps that may need to 
be taken and to be sure that those are incorporated into our 
Government-wide implementation efforts.
    The Chairman. If confirmed, who will you actually receive 
direction from here in Washington relative to positions that 
you take?
    Ms. Holgate. The letter of commission for ambassadors 
typically says that directions come from the President and from 
the Secretary of State, sir. My reporting chain goes through 
Assistant Secretary Crocker and then up through the position 
that we just had the nominee for. But these issues are 
addressed in an interagency process and a whole-of-government 
effort, and I will, if confirmed, play the role that I am 
assigned in that context.
    The Chairman. I know you are going to get some questions 
from someone whether QFR and personal--in a personal way 
relative to whether you are involved in the negotiation of the 
JCPOA. And so I would like to give you the opportunity publicly 
to state what your involvement was.
    Ms. Holgate. I appreciate that question, Senator.
    As we discussed in our conversation, which I appreciated, I 
was not part of the negotiating team, nor was I privy to the 
judgments made in the process of that negotiation. I am, 
however, familiar with its contents and I am fully prepared to 
vigorously support its implementation at the IAEA.
    The Chairman. And will you have the opportunity in this 
position, if confirmed, to be able to read the side agreements 
that were negotiated?
    Ms. Holgate. Mr. Senator, the side agreements that are 
referred to are actually safeguards agreements that are 
bilateral agreements between the IAEA and the member state. 
Those are safeguards confidential, and those are not shared 
with any member states.
    The Chairman. I had not planned to go down this route, but 
I am just curious then. What kind of oversight role do you have 
in this position? In other words, so you have the director. So 
the director is just able to negotiate whatever the director 
wishes and the folks who do what you do have no oversight role, 
no board of directors-type role relative to the entity.
    Ms. Holgate. Senator, it is my understanding that 
safeguards agreements are bilateral agreements between the 
Secretariat and the member state. That is true for every 
country that is a member of the IAEA. The United States has a 
similar safeguards agreements that is not public, is not 
available to other member states. This is part of how the IAEA 
maintains the confidentiality of information that is supplied 
in connection with that.
    The IAEA is, however, required to report on its findings on 
confirmation and verification of the commitments made in these 
safeguards agreements, and those are the reports that are 
provided to member states and that we will be providing to the 
Congress as they come from the secretariat.
    The Chairman. And again, I know you have nothing to do with 
how this has been set up. This is not directed to you. Again, I 
had not planned to go down this route.
    So that is odd, it would seem to me, that the safeguards 
agreement is the agreement as to how the work is going to be 
carried out. So you are not really conveying any confidential 
information. You are just talking about how you are going to 
deal with that entity to find out or that country to find out 
how they are progressing in the agreements that are made. Why 
would that be kept away from the folks, if you will, that are 
overseeing this particular organization? I am just curious as 
to why you think that would be the case.
    Ms. Holgate. Mr. Senator, the safeguards agreements include 
a range of technical details, including design of nuclear 
facilities, including proprietary information about how those 
facilities operate, an extreme amount of technical detail that 
helps the agency understand where it needs to apply safeguards, 
how it has to do with the process that is executed in that 
facility. That is not information that countries are eager to 
share with other countries, and frankly, from a 
nonproliferation point of view, that is not information that we 
are eager to have made public.
    The Chairman. One of the things that concerned people, no 
matter how they ended up voting relative to the agreement--I 
think there was a universal concern about the issue of possible 
military dimensions. And the fact that all Iran had to do was 
go through the process, and whether the IAEA came up with a 
report that was an A plus report or a D minus report, it did 
not matter as long as the process was gone through, if you 
will. That was very concerning I think to a lot of people and 
somewhat shocking.
    And I guess I would ask you let us say you are confirmed 
and the report comes back as a D minus, in other words, we 
really did not learn much because they did not provide much 
information, which again concerned a lot of people. What is it 
in this particular role that you would be able to do about 
that, if anything?
    Ms. Holgate. Senator, as I understand it, the IAEA will be 
delivering its report in mid-December. If I am fortunate enough 
to achieve your confidence by then in order to be there at that 
time--that report will be provided to the Board of Governors of 
the IAEA, and the board will have a chance to act and engage on 
the basis of that information.
    The JCPOA is focused on the future rather than the past, 
and so its mission is to make sure that those activities do not 
occur again, that if, in fact, there are steps taken toward 
possible military activities of Iran, that those are alerted 
to, that those are identified by the IAEA, and alerted to 
member states and in a timely fashion that allows us to take 
steps to prevent them from happening again.
    The Chairman. But you do agree, with all the technical 
background that you have, that having knowledge as to how far 
they have gone in the past towards weaponization is an 
important element in discerning how quickly in the future they 
will be able to move toward that same goal. Is it not?
    Ms. Holgate. Yes, sir. Knowledge is absolutely an important 
component of approaches to a military program, but all the 
knowledge in the world does not get you to a weapon if they do 
not have material, if they do not have the wherewithal to make 
material that could be used as a weapon. And that is the 
mission of the IAEA to monitor in an unprecedentedly intrusive 
way from the mines all the way through to the reactor and after 
every piece of nuclear material that is used in Iran. And that 
is where we gain the confidence that that knowledge will not be 
misapplied.
    The Chairman. I will move on to Senator Cardin. My time is 
up. I probably will have some more questions.
    Senator Cardin. I am going to follow up on your question 
first. The Director General of the IAEA reports to the Board of 
Governors. You are our representative on the Board of 
Governors. We expect that you will have access to all 
information you need to properly manage the Director General, 
the IAEA, and represent the United States.
    And I do not disagree with your analysis that the 
agreements we are referring to are confidential agreements 
negotiated by the IAEA and the member states and that 
confidentiality is maintained.
    Iran is somewhat different. During the negotiations of the 
JCPOA, a representative of the United States was allowed to 
review those documents, and I do not know whether that was done 
directly by the IAEA or by Iran, but it was done. And I mention 
that because I think, as Senator Corker has pointed out, we are 
going to need a clear understanding as to how Iran is 
proceeding, particularly as it relates to its military 
dimensions, but there is more to it than that. Developing a 
working understanding of the arrangements between the IAEA and 
Iran is going to be essential for you to be fully read into 
that, and I think you will. And then we need your candid 
assessments as to how much information we receive and whether 
it is in compliance with the JCPOA.
    So I just really wanted to underscore that point. I 
understand confidentiality, but I also understand 
responsibilities to the Board of Governors and you are the key 
player in that regard. So you have responsibility there.
    Let me just ask you an open question on this, which is 
where do you see the greatest challenges within the IAEA in 
assuring compliance by Iran of its commitments under the JCPOA, 
that part that comes under the responsibilities of the IAEA?
    Ms. Holgate. Senator, thank you for that question.
    I think the most challenging components of this agreement 
are going to be these novel aspects of the safeguards 
activities that the IAEA is being asked to undertake under the 
JCPOA. The work that they are doing at the mine, in the 
milling, and the conversion process of how uranium is handled 
within the country is unprecedented.
    Now, the United States has continued its long tradition of 
providing training, information, technical support, equipment 
to the IAEA safeguards community, and that continues to be the 
case, and it will be even more important as these safeguards 
inspectors are trained for these new roles. So the United 
States stands fully ready to play its traditional role of 
strong support to make sure the agency has the people, the 
resources, and the technology it needs to carry out these new 
roles.
    Senator Cardin. And even though they will not be inspectors 
carrying U.S. passports, the United States plays a critical 
role here as far as training and information, et cetera. I 
assume that is what you were referring to?
    Ms. Holgate. That is precisely what I am referring to, 
Senator. Thank you.
    Senator Cardin. Now, outside of Iran, there are other 
issues that you are going to be engaged with, the 
implementation and the safe handling of nuclear materials, 
particularly by those states that are involved in the use of 
nuclear materials, and the NPT commitments. With such a focus 
on Iran and the resources being used there, where do you see 
the challenges and a strong commitment toward the NPT 
safeguards?
    Ms. Holgate. The safeguards requirements of the IAEA are 
going to be critical to be applied globally under their role 
under the treaty. The United States and other member states 
have committed to make sure that this is not a zero sum game 
from a resource point of view with the resources that are going 
to be required in support of JCPOA implementation. And there is 
a formula being worked out as we speak on the balance between 
regular assessments and voluntary contributions to be sure that 
the agency's work in the JCPOA implementation does not 
interfere with or take away from the work it needs to do all 
over the world to assure that material is not diverted to 
weapons programs.
    Senator Cardin. And then lastly, if I might, how do you see 
your role working with other representatives from other 
countries, some who were directly involved in the JCPOA but 
others that were not, in getting firm international support for 
U.S. policies?
    Ms. Holgate. Senator, that is the essential role of the 
diplomat, and it is one that I am eager to have the opportunity 
to play, if confirmed. Many of these permanent representatives 
and ambassadors in Vienna are individuals that I have worked 
with because they represent their countries in the Nuclear 
Security Summit process. So I begin with some familiarity with 
some of the key members of the Vienna diplomatic community.
    Certainly the work to do to assemble coalitions around 
supporting particular decisionmaking processes to represent a 
common face in discussions in the Board of Governors in the 
general conference is something that I look forward to and will 
commit to doing effectively as I am able.
    Senator Cardin. Well, once again, we appreciate your 
willingness to continue to serve.
    Ms. Holgate. Thank you, sir.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks, Ms. Holgate. As somebody who grew up in 
Overland Park and has lived in Richmond for the last 31 years, 
I am particularly happy to see you and your family here.
    The IAEA has an interesting track record. I think it is an 
organization that generally has a positive track record, not 
unmarred by challenges certainly. After Iraq and North Korea 
developed nuclear weapons programs and the covert means, that 
was I think an admitted weakness of the IAEA and others that 
allowed that to happen. But then the IAEA said we need a fix, 
and so they went back to the table to develop the additional 
protocol that nations now must follow to try to route out that 
possibility. So that was a bad incident in the IAEA's history, 
but then they reacted to fix it in a good way.
    The IAEA was, I mean, to our kind of remaining sadness, 
right in March 2003 when they said that Iraq did not have a 
program of weapons of mass destruction, or at least they could 
find no credible evidence that it did. That conclusion of the 
IAEA was heavily trashed by a lot of people here, and it turned 
out the IAEA was right and we were wrong. That was a momentous 
moment.
    But I am impressed with the organization, but boy, the 
tasks on the shoulders of this organization are pretty 
monumental.
    First, does the IAEA have the budgetary resources that it 
needs to do the work that is on its shoulders, especially in 
the JCPOA, the commitment? There would be, I guess, 130-plus 
IAEA inspectors in Iran to monitor the JCPOA. Talk to us about 
the resources the organization has.
    Ms. Holgate. Well, sir, I appreciate the question, and may 
I say ``Go Royals''?
    Senator Kaine. Yes, indeed. 2-zip. We are thrilled. 
[Laughter.]
    Ms. Holgate. The agency's resources to support the JCPOA 
have been estimated at around 10 million euro. They believe 
that about half of that can be accommodated within the existing 
safeguards budget without detriment to the other missions that 
it has inside that budget, and that about 5 million euro will 
need to be raised from voluntary contributions from other 
countries. The United States is the largest contributor of 
voluntary contributions for a range of projects and activities 
within the IAEA. I fully expect that we will play our 
appropriate role. But that is clearly an area where other 
countries can contribute to the success of the JCPOA, including 
many of those who may have been on the sidelines but supporting 
the diplomatic solution that we pursued. And so we do not 
expect that this will be a large challenge for the agency to 
identify the resources.
    Senator Kaine. Well, next to Iranian intent, the single 
most important element that will determine whether this JCPOA 
works or not is the verification. So Iranian intent--you know, 
we are going to keep our focus on their actions. Their intent 
is still the most important factor. But the verification 
mechanisms are what give us the ability to determine that 
intent. And so the IAEA doing a good job and having the 
resources to do a good job is absolutely critical. And I know 
you share that view.
    One of my hopes is this. The deal certainly talks about 
traditional IAEA protocols, the additional protocol which Iran 
accedes to for the first 8 years, and then I guess 
legislatively has to decide whether they permanently accept. 
But in addition, this extra inspection of the supply chain, as 
you point out, you know, kind of from mine to mill to reactor, 
the whole supply chain of fissile material is incredibly 
important. And what I would love to see--I would hope at the 
end of that 25-year agreement that this might have been 
incorporated as a best practice into the additional protocol so 
that it would not just be a 25-year commitment that Iran would 
make, but if Iran agrees to the additional protocol, over time 
this supply chain monitoring could be added to the additional 
protocol for Iran and for all nations. I think this is a new 
best practice in the agreement in terms of verification. Right 
now it is only applicable to Iran and only for the 25-year 
period.
    And I would like to ask, since I do not know about this, 
kind of has the additional protocol been modified over time. 
Does it get modified to include new best practice elements, and 
would that be a realistic hope that I would have that maybe by 
the end of 25 years, this would become the norm?
    Ms. Holgate. Thank you, sir. And it is always important 
that the safeguards processes of the IAEA improve over time, 
and in fact they have done so.
    The JCPOA is explicit, however, that these specific 
innovations are unique to this agreement and do not form a 
precedent. That was important to gain agreement to this 
document, and that is the intent of those who associated with 
it.
    That having been said, as you said, there are best 
practices that are developed in the implementation of these 
activities. There are lessons learned. There are new 
technologies that are identified. There are ways to accomplish 
the same goal with fewer people or fewer resources. And so the 
IAEA and, indeed, the whole international community will be 
learning a lot during this 25-year period, and in our constant 
effort to improve and enhance IAEA safeguards, we may find that 
some of those techniques can be applicable to the broader 
safeguards activities of the agency.
    Senator Kaine. Great. Thank you so much for your testimony.
    Thank you, Mr. Chair.
    The Chairman. Thank you for your willingness to serve. As 
you heard with the last witness, there will be questions that 
will be coming in until the close of business Monday. 
Obviously, you understand the importance of responding to those 
fairly quickly.
    We thank your family for being here and their willingness 
to participate in this.
    With that, the meeting is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


  Responses of Thomas Shannon, Nominated to be an Under Secretary of 
State for Political Affairs, to Questions from Members of the Committee

                     thomas shannon's responses to 
                     questions from senator cardin
    Question. Corruption.--Corruption is a global scourge. It damages 
confidence in governments and institutions, undermines our rule of law 
and accountability efforts, and places a huge cost on consumers and 
businesses. As we have seen, corruption is inherently difficult and 
complex to measure. But by fostering greater public scrutiny of corrupt 
practices and behavior, I believe our government can achieve greater 
accountability.

  <diamond> a. What are the key indicators that you believe are most 
        effective in measuring corruption in a particular country?

    Answer. The best indicators of measuring corruption are the 
existence or lack of strong legal frameworks (on both preventing 
corruption and its criminalization), effective and impartial 
institutions, sound public administration, and enforcement and 
application in practice. Other factors, such as political 
accountability, media freedom, and space for civil society are also 
important indicators. We have strongly supported international 
initiatives that enshrine these measures (in the form of binding 
treaties or political commitments) and that establish processes to 
evaluate them impartially and promote compliance.

  <diamond> b. Shouldn't we publicly name corrupt countries and 
        individuals to encourage greater accountability?

    Answer. Thank you for raising the corruption issue. We share your 
concerns about corruption, which is why we have emphasized the 
importance of fighting corruption in countries where there is clearly a 
confluence between graft and poor governance. Corruption is often the 
reason why authoritarian leaders seize and cling to power, but it is 
also often one of their greatest vulnerabilities--the abuse of power 
that generates the greatest domestic opposition and that they are least 
able to justify on the world stage. The United States has led the 
creation of global standards and binding legal frameworks to prevent 
and combat graft, and to foster the international legal cooperation 
that is increasingly necessary. We have forged a consensus in the G20 
to strengthen safeguards against the flow of illicit funds, including 
by cracking down on the use of anonymous shell companies.
    Congress originally mandated the submission to Congress of an 
annual ``Country Report on Human Rights Practices'' to help ensure that 
human rights and democracy concerns are factored into foreign policy 
funding considerations. Congress also wisely includes in appropriations 
legislation prohibitions against direct funding for countries 
considered the worst of the worst, as well as country notification 
requirements for specific countries under congressional scrutiny.
    The administration already enforces a global visa policy to deny 
entry to certain human rights violators and individuals involved in 
public corruption. Presidential Proclamation 8697(human rights) and 
7750 (corruption) and Section 7031(c) of the FY 2015 Department of 
State, Foreign Operations, and Related Programs Appropriations Act 
allow the Department to deny visas to gross human rights violators and 
individuals involved in corruption that would not already be denied 
under existing ineligibilities. Also, the Immigration and Nationality 
Act (INA) already includes ineligibilities that can be applied to human 
rights abusers and who have engaged in torture, extrajudicial killings, 
genocide, use or recruitment of child soldiers, among others.
    We also rely on objective and multilateral approaches, such as the 
expert compliance reviews we have developed for each anticorruption 
treaty--which have the benefit of relying on shared international 
standards and the voice of the international community, rather than the 
voice of any one country.

  <diamond> c. What actions are you going to take to identify illicit 
        financial flows, particularly in the natural resource and real 
        property sectors?

    Answer. We are actively taking action to identify illicit financial 
flows. The State Department continues to work with the Departments of 
Treasury and Justice to support strong antimoney laundering standards 
globally and build foreign countries' capacity to implement them. The 
Department is also promoting ownership transparency, including through 
the G7 and G20 to reduce illicit flows through shell businesses. We 
also promote transparency in the extractives sector through our 
participation in, and support of, the Extractives Industry Transparency 
Initiative (EITI), and strongly support the objectives of Section 1504 
of the Dodd-Frank Act, which set a new standard for transparency in the 
extractive industries. Section 1504 requires oil, gas, and mining 
companies listed on a U.S. stock exchange to publish their payments to 
U.S. and foreign governments for the commercial development of these 
natural resources. In addition, the Department promotes efforts to stem 
foreign bribery connected with business transactions in any subsector. 
These efforts bolster international cooperation and ultimately 
facilitate asset recovery.

    Question. The Securities and Exchange Commission (SEC) is currently 
rewriting the rule for Section 1504 of the Dodd-Frank Wall Street 
Reform and Consumer Protection Act. As you may know, Section 1504 
requires oil, gas, and mining companies listed on a U.S. stock exchange 
to publish their payments to U.S. and foreign governments for the 
commercial development of these natural resources. Information about 
payments made to governments by extractives companies promotes a number 
of U.S. goals. For example, greater transparency in the oil, gas, and 
mining sector will deter corrupt behavior and ensure that foreign aid 
dollars are being used in conjunction with natural resource revenues to 
promote development.

  <diamond> Given the foreign policy objectives of the Section 1504 
        rule please discuss how, if confirmed, you intend to engage 
        with the SEC to ensure that they issue a strong rule that 
        serves U.S. foreign policy goals?

    Answer. We strongly support the objectives of Section 1504, as it 
directly advances the United States foreign policy interests in 
increasing transparency and reducing corruption in the oil, gas, and 
minerals sectors. We recognize the importance of the SEC's rule both 
domestically and for the United States foreign policy interests and we 
hope to see a strong rule issued. Corruption and mismanagement of these 
resources can impede economic growth, reduce opportunities for U.S. 
trade and investment, divert critically needed funding from social 
services and other government activities, and contribute to instability 
and conflict. Transparency has long been widely identified as a key 
component of the fight against corruption in this sector. Efforts to 
increase transparency have been a high priority for this administration 
as part of the U.S. Government's good governance promotion, 
anticorruption, and energy security strategies.
    As section 1504 sets a new standard for transparency in the 
extractive industries, we have encouraged other governments and 
regional organizations to adopt similar strong transparency measures. 
Additionally, we are encouraging the SEC to produce a strong Section 
1504 rule that improves transparency by ensuring that a sufficiently 
detailed level of information concerning payments from the extractive 
industry to foreign governments for the development of oil, natural 
gas, and minerals will be made public and accessible to civil society 
and investors. In the absence of this level of transparency, citizens 
have fewer means to hold their governments accountable, and 
accountability is a key component of reducing the risk of corruption. 
Finally, we will continue to work with our colleagues at the SEC, 
USAID, Department of Treasury, and Department of the Interior--the lead 
for U.S. implementation of the Extractive Industries Transparency 
Initiative (USEITI)--to ensure robust implementation to this important 
initiative. We look forward to reviewing the SEC's draft rule once it 
has been released for public comment.

    Question. Based upon the first meeting of the Joint Commission, do 
you believe it will be an effective forum for ensuring Iranian 
compliance with the JCPOA? How did the other P5+1 states, particularly 
the Russians and Chinese, approach the work of the Joint Commission? 
Did the Iranians provide any indications about when they will complete 
the nuclear related steps necessary to reach Implementation Day?

    Answer. We believe the Joint Commission (JC) will play an important 
role in promoting the successful implementation of the Joint 
Comprehensive Plan of Action (JCPOA). We are committed to ensuring the 
JC functions effectively and serves as a useful forum for monitoring 
Iran's fulfillment of its nuclear-related commitments and facilitating 
the resolution of issues in a timely fashion. All of the JCPOA 
participants--the P5+1, the European Union and Iran--attended the first 
meeting of the JC, and remain committed to the implementation of the 
JCPOA. Participants focused on establishing the JC's modalities and 
operations. Iran briefed on its plans for getting to Implementation 
Day, which they are eager to reach in order to receive sanctions relief 
as soon as possible. The timeline for reaching Implementation Day will 
be dependent on Iran and when it can complete the required nuclear 
steps. Our focus is not on reaching Implementation Day as quickly as 
possible, but rather on ensuring that Iran completes these steps in a 
verifiable fashion.

    Question. I remain concerned about our ability to hold Iran 
accountable for its support to terrorism, its human rights abuses, and 
its ballistic missile program while implementing the JCPOA.

  <diamond> Can you assure me that we have the flexibility and will to 
        respond to Iranian actions in region in light of our 
        obligations under the JCPOA?

    Answer. We have been clear, both publicly and privately with Iran 
that we will continue to take action to counter Iran's destabilizing 
activities, to block its support for terrorism, and to call attention 
to its human rights record. This includes the use of sanctions.
    We are working with our regional partners to counter Iran's 
destabilizing activities in the region in a number of ways. First, we 
are undermining Iran's capacity to execute attacks directly or through 
its partners and proxies by expanding our cooperation with and 
strengthening the capacity of regional partners. Second, we are working 
to restrict Iran's ability to move money and material for illicit 
purposes through sanctions and direct action when necessary. Third, we 
remain committed to Israel's security and that of our other regional 
allies and we continue to build up our partners' capacity to defend 
themselves against Iranian aggression. Fourth, we are working 
unilaterally and with allies to weaken Hezbollah's financial networks. 
Finally, we are working to disrupt Iran's relationships with its 
proxies by publicizing Iran's meddling wherever we can, and we are 
strengthening democratic institutions and the rule of law in countries 
facing threats from Iranian proxy activities.
    U.S. policy regarding Iran's human rights abuses has not changed as 
a result of the JCPOA. We will continue to publicly express our 
concerns regarding Iran's human rights abuses, and to work with the 
international community to press Iran to meet its international human 
rights commitments. Our unilateral sanctions focused on human rights 
abuses will not be affected by the JCPOA, and we will continue to 
enforce them.
    Iran's October 10 missile launch violates UNSCR 1929, which 
requires Iran not to ``undertake any activity related to ballistic 
missiles capable of delivering nuclear weapons, including launches 
using ballistic missile technology.'' We have strongly condemned the 
launch and U.N. Ambassador Power raised Iran's violation in the U.N. 
Security Council in mid-October. We also submitted a joint report on 
the launch, together with France, Germany, and the U.K., to the Iran 
Sanctions Committee, calling upon the committee to review the matter 
and recommend appropriate action.
    Beyond the U.N. Security Council, we continue to use a variety of 
tools to counter Iran's missile-related activities. These include 
continuing to work with the more than 100 countries around the world 
that have endorsed the Proliferation Security Initiative (PSI) to help 
limit Iranian missile-related imports; urging all countries to 
implement and enforce missile-related export controls, such as those 
established by the Missile Technology Control Regime (MTCR), to limit 
the proliferation of missile technology and equipment to Iran; and 
employing our unilateral tools such as domestic authorities that 
provide us ways to impose sanctions on entities or individuals 
supporting Iran's missile program. We are reviewing the facts from the 
recent launch to determine whether additional unilateral action is 
warranted in this case.

    Question. In a letter that President Obama sent to Senator Wyden, 
he stated that there are a wide range of unilateral and multilateral 
responses that the United States could take with its partners if Iran 
fails to meet its JCPOA commitments. This letter also referenced 
incremental options to ``apply calibrated pressure in the event of 
noncompliance issues by Iran.''

  <diamond> In your view, what are those incremental options and what 
        will your approach be in making recommendations to the 
        President and what and when to apply such options?

    Answer. The United States is committed to promoting the effective 
implementation of the Joint Comprehensive Plan of Action (JCPOA) and 
ensuring that Iran is fulfilling all of its nuclear-related commitments 
in a verifiable and complete fashion. Should we detect a violation of 
the agreement by Iran, the State Department will not hesitate to 
discuss appropriate actions with the President. We retain a wide range 
of options to deal with any failure by Iran to fulfill its nuclear-
related commitments, whether significant nonperformance by Iran or more 
minor instances of noncompliance. For example, the United States has 
the ability to reimpose both national and multilateral nuclear-related 
sanctions in the event of nonperformance by Iran. In the case of United 
Nations (U.N.) sanctions, under U.N. Security Council Resolution 2231, 
we could do so even over the objections of any member of the Security 
Council, including China or Russia. Additionally, we have a range of 
other options for addressing minor noncompliance, including reimposing 
certain domestic sanctions to respond to minor but persistent 
violations of the JCPOA, and using our leverage in the Joint Commission 
on procurement requests.

    Question. Are you confident that the IAEA has the capacity to 
meticulously verify Iranian compliance?

    Answer. Yes. The IAEA has an established record of implementing 
safeguards agreements worldwide, and in verifying the compliance of 
states with their nuclear obligations. In addition, the IAEA has a 
proven track record of performing additional verification 
responsibilities based on its experience in verifying the Joint Plan of 
Action (JPOA) among the P5+1 and Iran since November 2013.
    The Joint Comprehensive Plan of Action (JCPOA) puts in place 
vigorous, intrusive, and unprecedented transparency measures to enable 
the IAEA to verify whether Iran is fulfilling its nuclear-related 
commitments under the JCPOA. The sanctions-related steps in the JCPOA 
will not be implemented until the IAEA is able to verify that Iran has 
completed key nuclear-related measures.
    The JCPOA ensures continuous monitoring of Iran's key declared 
nuclear facilities. Not only will the IAEA have the right to a constant 
physical or technical presence in Iran's primary nuclear sites, Natanz 
and Fordow, but it will be able to conduct regular monitoring of Iran's 
uranium mines and mills and its centrifuge production, assembly, and 
storage facilities. This means that the IAEA will have information, 
access, and/or instrumental observation concerning the entire nuclear 
fuel cycle in Iran, as well as its nuclear-related procurement. This 
kind of monitoring makes it exceedingly difficult for Iran to divert 
materials for clandestine sites without being rapidly detected. 
Moreover, the establishment of a dedicated procurement channel for 
Iran's nuclear program will further enable the close monitoring and 
approval of all nuclear-related imports so as to minimize the chances 
of any diversion to a secret nuclear weapons program.
    Under the Additional Protocol, which Iran will implement under the 
JCPOA, IAEA inspectors can request access to any location they have 
reason to suspect relates to undeclared nuclear activities. This is 
separate and in addition to the continuous access described above at 
declared nuclear facilities. The IAEA may use environmental sampling, 
visual observation, and radiation detection and measurement devices to 
detect clandestine nuclear activity at these locations. Moreover, if 
Iran were to deny an IAEA request for access to a suspicious undeclared 
location, a special provision in the JCPOA would trigger an access 
dispute resolution mechanism.

    Question. The United States has been a leader in providing 
humanitarian assistance to the Syrian conflict, but how do we address 
the hard fact that humanitarian needs are far outstripping the 
available resources?
    In the tradition of being a beacon of hope for refugees across the 
globe fleeing violence and persecution, shouldn't we in the United 
States be willing to resettle significantly more Syrian refugees--who 
undergo the toughest security vetting available--to our country? The 
German Government will be accepting 1.5 million asylees this year 
alone. Should the United States be capable of identifying, conducting 
security screening and then resettling more than just 10,000 Syrian 
refugees announced for next year?

    Answer. We agree the needs stemming from the Syria humanitarian 
crisis are outpacing the international community's response. We have 
provided more than $4.5 billion in humanitarian assistance since the 
start of the conflict; however, despite these efforts the U.N. appeal 
for the response is only 45 percent funded. To address this crisis, we 
are executing a five-pronged approach by: (1) engaging in robust 
international humanitarian diplomacy to encourage countries to 
contribute to the U.N. appeals for the Syrian crisis; (2) working to 
significantly increase the number of countries resettling Syrian 
refugees; (3) working with countries of first asylum to identify 
opportunities for refugees to pursue employment and become more self-
sufficient in ways that do not exacerbate existing unemployment issues 
in host countries; (4) expanding methods to coordinate humanitarian and 
development assistance to support nations hosting large numbers of 
refugees; and (5) helping Europe focus on saving lives, improving 
reception, registration, and immediate assistance while it grapples 
with huge migration policy issues.
    The United States aims to admit up to 85,000 refugees in FY 2016, 
including 10,000 from Syria. This is a 21-percent projected increase in 
total arrivals over FY 2015, and a more than 500-percent increase in 
the number of Syrians admitted over the number admitted in FY 2015. The 
Department of State believes that 10,000 Syrian admissions is 
achievable given the number of referrals we have received from the U.N. 
High Commissioner for Refugees as well as U.S. Government capacity to 
interview and security and medical screen Syrian applicants in the 
coming year. We will continue to evaluate the U.S. response to this 
humanitarian crisis, and if we can do more, we will.

    Question. The U.N. estimates that some 422,000 people inside Syria 
are ``besieged''--meaning completely cut off from receiving aid. 
Another 4.8 million are estimated as ``hard-to-reach.''

  <diamond> What can the international community do differently to 
        ensure that humanitarian access expands and that aid reaches 
        those in Syria who need it the most?

    Answer. We remain very concerned about the people in Syria living 
in what the United Nations (U.N.) designates as ``hard to reach'' or 
``besieged areas.'' These are vulnerable populations in great need of 
our support, and receive minimal to no assistance. ``Besieged'' areas 
are the most challenging in terms of access because those areas are cut 
off from humanitarian aid--in most cases because of the actions of the 
Assad regime. We continue to call on the regime and its allies to allow 
aid throughout the country. The U.N. now estimates 4.5 million people 
are residing in designated ``hard to reach'' areas, more than half are 
in areas under the control of the Islamic State of Iraq and the Levant 
(ISIL). Despite the urgent need to reach civilians in need trapped 
under ISIL rule, our partners have found it increasingly challenging to 
operate in areas they control, given their violent and unpredictable 
nature. However, we continue to work to reach people in critical need 
of life-saving assistance in these areas, in cases where we are able to 
do so without ISIL stealing or benefiting from the assistance.
    The United States has worked through the U.N. Security Council and 
has supported Resolutions 2139, 2165, and 2191 calling for unhindered 
access to people in need. We continue to call on all parties to the 
conflict to act consistently with the calls in those resolutions. 
However, the single greatest factor limiting access for humanitarian 
aid remains the ongoing, intensifying conflict. Humanitarian assistance 
will not end the bloodshed in Syria.
    In addition, to maximize the reach and effectiveness of our 
support, we are working through various channels to ensure our 
assistance reaches throughout the entire country. These channels 
include the U.N., international organizations, nongovernmental 
organizations (NGOs), and local Syrian organizations and networks. It 
includes assistance that originates in Syria, assistance delivered 
across conflict lines, and cross border assistance.
    United States Government humanitarian assistance is provided based 
on humanitarian need and the ability of our partners to access the 
populations in need of assistance. We work closely with the U.N., NGOs, 
and our Disaster Response teams on the ground to ensure we have the 
most current and detailed information on what the most pressing needs 
are and how we can reach those populations. We are in constant 
communication with our partners to discuss our programs and to ensure 
we are reaching the intended beneficiaries. Our programs also remain 
flexible should we need to modify methods or activities to minimize 
safety and security concerns or risk of diversion.
    The United States has provided more than $4.5 billion in 
humanitarian assistance since the start of the Syrian crisis--more than 
any other single donor--to help address dire humanitarian needs faced 
by millions of Syrians. For 5 years, our partners have fearlessly 
crossed conflict lines--at great personal risk--to help approximately 5 
million people inside Syria every month who are in need of assistance 
and caught in the cross-fire If confirmed, I will ensure we continue 
these efforts to reach all those in need in Syria.

    Question. During the annual tier ranking negotiations with the J/
TIP office, the regional bureaus often have an outsized role in 
determining the tier rankings of a country. If confirmed as the Under 
Secretary for Political Affairs, you will represent the regional 
bureaus in these negotiations.

  <diamond> If confirmed, how will you work to ensure that credibility 
        of the TIP Report--which was the gold standard--is restored?
  <diamond> In tier ranking discussions, how will you approach the 
        large footprint of the regional bureaus with the much less 
        resourced and weaker J/TIP office to ensure that the TIP 
        office's recommendations are given serious consideration, not 
        dismissed out of hand, and taken on board if reasonable?

    Answer. Over the past 15 years, the TIP Report has consistently 
drawn public attention to the problem of modern slavery and foreign 
government efforts to address it. The report is widely regarded as the 
gold standard for antitrafficking information about government efforts 
around the world to address this crime.
    The Department strives to make the report as objective and accurate 
as possible, documenting the successes and shortcomings of government 
antitrafficking efforts measured against the minimum standards 
established under U.S. law. However, the perception that unrelated 
political concerns played a role in the 2015 tier ranking process is a 
significant threat to the report's credibility.
    The Department continuously reviews how we can use the report even 
more effectively as a lever to motivate tangible progress around the 
world. Specifically, the Department is working to improve internal 
communication and institutionalizing a process that ensures high-level 
engagement in a timely way throughout the course of the reporting 
period to urge governments to take needed action to fulfill the TIP 
Report recommendations. In addition, we are reviewing the individual 
country recommendations in the report, which inform the Action Plans we 
prepare annually for each country. We are considering ways we can 
strengthen the recommendations in the report and use them more 
effectively to push progress in individual priority countries through 
engagement year round.
    Producing the TIP Report is a year-round and whole-of-Department 
effort. It has and will continue to reflect the Department's assessment 
of foreign government efforts in 188 countries and territories during 
the reporting period to combat trafficking. Dedicated staff from the 
Office to Monitor and Combat Trafficking in Persons (J/TIP) and 
officers in the regional bureaus and at posts around the world work 
together, including with senior Department officials, to gather 
information year round from foreign governments, media, and civil 
society to inform each of the narratives.
    The final narratives and rankings, which the Secretary approves, 
reflect the Department's best assessment of government efforts to 
combat human trafficking. If confirmed, I commit to you that I will 
continue this work with the utmost integrity--understanding both J/
TIP's essential role and voice in this process, as well as the 
importance of our missions on the ground in working with host 
governments to implement the recommendations in the TIP Report.
    If confirmed, I look forward to working with the J/TIP Office, our 
regional bureaus, and our missions around the globe to ensure TIP 
issues are integrated into our broader foreign policy efforts. If 
confirmed, I also look forward to a robust and ongoing engagement and 
consultation with Congress to ensure that the TIP Report remains the 
gold standard for antitrafficking efforts for years to come.

    Question. In an effort to respond to the humanitarian crisis of 
unaccompanied Central American minors arriving at the United States 
Southwestern border, the United States has deepened its engagement with 
Central American nations and their governments in an effort to respond 
to challenges to citizen security, bolster democratic governance, 
promote economic growth, and facilitate regional integration. However, 
U.S. relations with Nicaragua remain minimal.

  <diamond> As part of its efforts to promote political and economic 
        integration in Central America, is there an opportunity for the 
        United States to pursue greater engagement with the Nicaraguan 
        Government? Please identify areas where the United States and 
        Nicaragua could increase bilateral cooperation.

    Answer. Currently, our engagement with Nicaragua has produced 
positive collaboration on trade, counternarcotics, search and rescue, 
disaster preparedness and response, the return of fugitive U.S. 
citizens, and protection of cultural patrimony. We believe we can 
continue to deepen our cooperation in these areas. The Nicaraguan 
Government also resolved all U.S. citizen property compensation claims 
subject to foreign assistance restrictions under Section 527. Our 
engagement on issues of democratic governance has been less productive. 
However, we will continue to use our engagement to promote democracy 
and greater defense of human rights.
    In keeping with our larger engagement in Central America, we will 
work with Nicaragua to increase regional prosperity and security, 
particularly given Nicaragua's relatively strong economic growth, 
renewable energy production, and counternarcotics efforts. We will also 
seek to work with Nicaragua and its neighbors to promote regional 
integration and peaceful and enduring resolution of border and maritime 
boundary disputes.

    Question. How do you think this decision will impact the peace and 
reconciliation process in Afghanistan? Upon confirmation, do you 
anticipate playing a role in the reconciliation process?

    Answer. The United States continues to support an Afghan-led 
reconciliation process by which all Afghan opposition groups, including 
the Taliban, enter a political dialogue so that Afghans can talk to 
other Afghans about the future of their country and eventually resolve 
the conflict in Afghanistan. As part of the Department of State team, I 
will support U.S. efforts to work with the Afghan Government in its 
efforts to establish an Afghan-led reconciliation process.
    The Taliban have an opportunity to make genuine peace with the 
Afghan Government and rebuild their lives. The Government of 
Afghanistan has invited the Taliban to join the Afghan political 
process. The Taliban have a choice. They can accept the Government of 
Afghanistan's invitation to engage in a peace process and ultimately 
become part of the legitimate political system of a sovereign, united 
Afghanistan, supported by the international community. Or, they can 
choose to continue fighting fellow Afghans and destabilizing their own 
country.
    The President's decision will help the United States to continue 
playing an important role in setting the conditions for peace and 
reconciliation.

    Question. In the past 2 fiscal years, combined funding from the 
Departments of State and Defense for security assistance to Africa has 
grown from $542 million to $1 billion, while democracy building 
assistance has fallen from $230 million to $160 million during the same 
time period. Though I understand myriad security challenges in the 
region, this imbalance in funding comes at a time of serious governance 
challenges and sends the wrong message to our partners.

  <diamond> Will you commit, if confirmed, to ensuring that there is an 
        appropriate balance between engagement on security assistance 
        and in the area of democracy and governance?

    Answer. Democracy, human rights, and governance (DRG) programs 
remain a significant priority for this administration. This commitment 
is strongly reflected in the President's Budget for FY 2016, which 
requests $312 million for critical DRG programs in Africa to foster 
good governance and fight corruption, strengthen the rule of law, and 
promote civil society. In the past, annual appropriations bills have 
reduced funding for the key foreign assistance accounts that support 
DRG, which can make it difficult to fully fund these important 
activities. Our goal is to increase support for these important 
democracy-building programs, particularly in Africa.
    The Department of State also views the enhancement and improvement 
of security sector capabilities in Africa--both military and civilian--
as an integral part of improving the human rights situation. Past 
events have shown us that security forces that lack robust civilian 
oversight and have not been appropriately educated on the importance of 
civilian security and respect for human rights norms can quickly 
descend into becoming perpetrators of human rights violations. For this 
reason, all of our military and police training includes a strong human 
rights component. In addition to traditional security assistance 
programs, the Security Governance Initiative (SGI) is an example of an 
important State Department-led effort specifically targeted to 
strengthen the institutions that govern the security sector. Our 
security sector reform efforts seek to increase the efficiency and 
effectiveness of the security forces of African partner countries by 
improving the management, oversight and accountability of security 
sector institutions. Our engagement focuses at the strategic level to 
enhance military, law enforcement, and justice sector governance and 
capacity of African partners. We plan to continue those efforts, 
working toward the common goals of adherence to human rights norms and 
the protection of the citizenry, that militaries and police forces are 
established to protect.

    Question. What specific steps has the administration taken to 
improve human rights and political freedoms in Angola over the past 
several years through both diplomatic efforts and programmatic 
activities?

    Answer. We regularly meet with civil society, including human 
rights activists, attorneys, and independent journalists and discuss 
these issues in depth with government counterparts, including Vice 
President Vicente and Foreign Minister Chikoti. The Embassy has an 
ongoing relationship with the Minister of Justice and Human Rights that 
will continue at the first ever Human Rights Dialogue, tentatively 
scheduled for this November. On human rights cases, the Embassy attends 
court trials engaging with the defendants and their legal team. DRL 
Deputy Assistant Secretary Feldstein raised these points with the 
government during his August 2015 visit to Luanda. We will continue to 
press the Government of Angola to combat corruption and improve human 
rights such as freedom of press, assembly, and speech, including 
through the AGOA eligibility annual review process in early 2016.

    Question. What is your assessment of the actual--as opposed to 
stated--reasons for the arrest of the so called ``Angola 15,'' and what 
specific actions has the State Department taken in the context of their 
arrest and detention to make clear that the government should respect 
freedom of assembly, association, and speech, and follow due process 
related to this case and others?

    Answer. We note the Government of Angola's claims that they 
arrested the 15 activists due to fears of an attempted unconstitutional 
change of government. They have indicated they have additional evidence 
in this case and we will monitor further developments as the trial 
progresses. We continue to engage the government on this case and all 
other human rights cases urging an open and transparent due process be 
observed. U.S. Embassy Luanda has discussed detention conditions with 
the detainees' lawyers. During DRL Deputy Assistant Secretary 
Feldstein's visit to Luanda in August 2015, he met with human rights 
defenders, the activists' lawyers, and the government. As a followup to 
his visit, a Human Rights Dialogue with the government is tentatively 
scheduled for this November in Washington, DC.

    Question. If confirmed, how will you make sure that the Asia-
Pacific region remains a priority in our foreign policy and balance it 
with other competing regional priorities?

    Answer. The Asia-Pacific is a critical region for the United States 
because we are, and will remain, a Pacific power. The former Under 
Secretary for Political Affairs worked to increase U.S. presence in the 
region and establish a ``new normal'' of engagement. If confirmed, I 
will work to sustain and increase this ``new normal'' of intensified 
engagement, while exploring fresh efforts to expand our influence. I 
will also work to strengthen our partnerships and alliances, and 
develop maritime domain awareness (MDA) and law enforcement capacity in 
Southeast Asia. In the future, I look forward to seeking new 
opportunities to empower our partners in the region to more capably 
tackle global challenges such as climate change, global public health, 
human rights, counterterrorism, nonproliferation, transnational crime, 
and other traditional and nontraditional security challenges.

                               __________
                     thomas shannon's responses to 
                      questions from senator rubio
    Question. Unfortunately, Venezuela's December 6 parliamentary 
election will not include democratic figures like Leopoldo Lopez, who 
remains in jail, on the ballot. During your confirmation hearing, you 
stated that those political prisoners are essential to the democratic 
process in Venezuela, and that you will continue to press for their 
release.

  <diamond> Can the elections be truly considered fair and free while 
        prominent opposition figures remain imprisoned and barred from 
        participating?

    Answer. We remain deeply concerned by the Venezuelan Government's 
continuing efforts to prevent opponents from participating in the 
political process. Arresting and imprisoning leading political figures, 
declaring others ineligible to hold public office, and restricting the 
ability of candidates to campaign and communicate with voters are 
significant violations of democratic principles and practices. In such 
an environment, it is hard to see how an election could be fair. 
However, the upcoming legislative elections could still be free, if 
Venezuelans are allowed to go to the polls and there is sufficient 
guarantee that their votes will count.
    While we join the U.N. High Commissioner for Human Rights, the 
Inter-American Commission on Human Rights, and the European Union in 
calling on Venezuela to release political prisoners and respect human 
rights and fundamental freedoms, we also call on the government to 
invite credible international election observers to participate in the 
December 6 elections. We believe that such observers will guarantee the 
votes of all Venezuelans, and help Venezuelans exercise a fundamental 
right no matter how challenging the political environment.

    Question. Last year, Moises Naim of the Carnegie Endowment for 
International Peace noted in The Financial Times that, ``the enormous 
influence that Cuba has gained in Venezuela is one of the most 
underreported geopolitical developments of recent times.''

  <diamond> Do you believe that Cuba has contributed to the weakening 
        of democratic institutions in Venezuela?
  <diamond> How much influence do you believe Cuba has with Venezuela's 
        military and security services?
  <diamond> Should Cuba's regime be held accountable for the 
        deterioration of democracy and supporting repression in 
        Venezuela?
  <diamond> Has the Obama administration's new Cuba policy, which 
        unconditionally recognized and promotes business with the 
        Western Hemisphere's sole totalitarian dictatorship, sent a 
        message to the Maduro government that there are no consequences 
        for similarly radicalizing his regime?

    Answer. Cuba's interests in Venezuela are threefold: securing a 
reliable source of cheap energy, obtaining cash transfers to meet 
fiscal needs, and gaining an ally in South America and the greater 
Caribbean. Cuba has pursued these interests assiduously, and in return 
has provided the Venezuelan Government with much-needed security and 
intelligence assistance, doctors, teachers, and other personnel to run 
Venezuela's social programs. While Cuba is interested in the stability 
of Venezuela, it has no interest or investment in Venezuela's 
democratic institutions.
    That said, the challenges facing Venezuelan democracy are the 
responsibility of the Government of Venezuela. However important Cuban 
influence might be, we should not deflect that responsibility. It is 
the Venezuelan Government that is holding political prisoners, 
declaring political candidates ineligible for public office, weakening 
the separation of powers, politicizing the judiciary, and limiting 
freedom of the press.
    The United States consistently makes clear to the Government of 
Venezuela that their acts of repression and oppression will continue to 
impact the bilateral relationship negatively. Each iteration of 
dialogue with the Venezuelans is anchored by direct and candid 
engagement on human rights, rule-of-law, and public trust.
    In our engagement with countries throughout the region we press 
governments to live up to the hemisphere's shared commitment to 
democracy as articulated in the OAS Charter, the Inter-American 
Democratic Charter, and other fundamental instruments related to 
democracy and human rights. In the process, we will continue to call on 
the Venezuelan Government to respect the human rights of all 
Venezuelans, regardless of their political affiliations and views, and 
afford them the ability to exercise their rights and freedoms of 
expression and assembly and due process.

    Question. Please explain why each of the individuals in the 
attached list have not been sanctioned under the Venezuela Defense of 
Human Rights and Civil Society Act of 2014.

    Answer. While I was not involved in the implementation of the 
Venezuela Defense of Human Rights and Civil Society Act of 2014, I 
believe this law, and Executive Order 13692, are important foreign 
policy tools that we should use as appropriate and necessary. Each 
determination on whether and when to impose targeted measures, 
including visa restrictions or asset blocking, takes into account the 
specific factual information we have on the individuals at issue in 
light of the requirements under U.S. law for imposing sanctions. Our 
implementation of sanctions is also carried out in the context of U.S. 
foreign policy interests, in consultation with all relevant agencies, 
including respect for human rights, democratic governance and 
pluralism, and regional security and stability.
    Separately, since July 2014 the Department has restricted visa 
eligibility for certain Venezuelans believed to be responsible for, or 
complicit, in human rights abuses and undermining democratic 
governance, including public corruption. The Secretary of State took 
these steps pursuant to Section 212(a)(3)(C) of the Immigration and 
Nationality Act.
    We will continue to monitor the situation in Venezuela, and stand 
ready to take action against other individuals as additional 
information becomes available and is assessed to meet the criteria for 
sanctions.

    Question. Did you or any U.S. official, including persons in the 
White House, indicate to representatives of the Venezuelan Government 
that the United States will refrain from applying additional sanctions 
on human rights violators or other corrupt persons?

    Answer. No. We have been clear that all diplomatic options remain 
on the table and, should the situation warrant it, we would deploy 
these tools.

    Question. During your time as Counselor of the State Department, 
please provide a list of specific times and circumstances in which you 
have met Diosdado Cabello, Speaker of Venezuela's National Assembly?

    Answer. I traveled to Port-au-Prince on June 13, 2015, at the 
invitation of Haitian President Michel Martelly, who hosted U.S. and 
Venezuelan officials for a trilateral meeting to discuss Haitian 
elections and support for its reconstruction and development. National 
Assembly President Diosdado Cabello was a member of the Venezuelan 
delegation. Following the trilateral meeting, I met with Mr. Cabello 
and Foreign Minister Rodriguez in a bilateral meeting. These were the 
only times I have met with Mr. Cabello during my tenure as Counselor.

    Question. In June 2015, you were photographed meeting with Mr. 
Cabello in Haiti. Were you aware in advance that he would be attending 
this meeting? If so, when did you find out?

    Answer. The Venezuelan Government chose the members of its 
delegation for the June 13, 2015, trilateral meeting in Port-au-Prince. 
We did not know of Mr. Cabello's inclusion in that group until we 
arrived in Haiti on June 13.

    Question. Is it the Obama administration's policy to send high-
ranking State Department officials to meet with senior foreign 
officials that are the targets of U.S. federal investigations?

    Answer. No. In pursuit of U.S. national interests, we regularly 
meet with a broad spectrum of political, private sector, and civil 
society leaders. We are mindful of those instances when such leaders 
are accused of wrong doing or are under investigation. There are 
moments when such engagement is necessary, either to communicate 
clearly U.S. positions or achieve U.S. policy goals.

    Question. Have you been briefed about the ongoing investigation of 
Diosdado Cabello by anyone in the U.S. law enforcement community? If 
so, when and whom were you briefed by?

    Answer. In the course of my duties as Counselor, I have been 
briefed by federal law enforcement agencies regarding the situation in 
Venezuela, specifically in April and June 2015. The exact subject and 
nature of these briefings is sensitive law enforcement information.

    Question. Have you ever discussed the status of any ongoing law 
enforcement investigations with any Venezuelan officials, including 
Diosdado Cabello?

    Answer. No. I have not discussed the status of any ongoing law 
enforcement investigations with Venezuelan officials.

    Question. Has the Drug Enforcement Administration or Department of 
Justice provided a list to the Department of State of individuals 
cooperating with U.S. law enforcement investigations in Venezuela? If 
so, when?

    Answer. No. I am unaware of any such list.

    Question. Has the State Department revoked visas for any Venezuelan 
officials that the U.S. law enforcement community has indicated are 
cooperating with the U.S. Government? If so, what was your role in that 
decision?

    Answer. I am not aware of any visa revocations of Venezuelan 
officials that are cooperating with U.S. law enforcement officials.

    Question. Please explain the length and nature of your relationship 
with Pedro Mario Burelli, a Venezuelan citizen.

    Answer. I first met Pedro Burelli when I served at our Embassy in 
Caracas from 1996-99. At the time, he was a member of the PDVSA Board 
of Directors and his father, Miguel Angel Burelli Rivas, was the 
Foreign Minister in the government of President Rafael Caldera. Mr. 
Burelli is a friend of mine.

    Question. During your nomination hearing, you stated that if 
confirmed, you will make sure that you will work to restore the 
credibility of the TIP process. If confirmed, what are your specific 
recommendations for making the TIP process more transparent?

    Answer. Over the past 15 years, the TIP Report has consistently 
drawn public attention to the problem of modern slavery and foreign 
government efforts to address it. The report is widely regarded as the 
gold standard for antitrafficking information about government efforts 
around the world to address this crime.
    The Department strives to make the report as objective and accurate 
as possible, documenting the successes and shortcomings of government 
antitrafficking efforts measured against the minimum standards 
established under U.S. law. However, the perception that unrelated 
political concerns played a role in the 2015 tier ranking process is a 
significant threat to the report's credibility.
    The Department continuously reviews how we can use the report even 
more effectively as a lever to motivate tangible progress around the 
world. Specifically, the Department is working to improve internal 
communication and institutionalizing a process that ensures high-level 
engagement in a timely way throughout the course of the reporting 
period to urge governments to take needed action to fulfill the TIP 
Report recommendations. In addition, we are reviewing the individual 
country recommendations in the report, which inform the Action Plans we 
prepare annually for each country. We are considering ways we can 
strengthen the recommendations in the report and use them more 
effectively to push progress in individual priority countries through 
engagement year round.
    If confirmed, I look forward to working with the J/TIP Office, our 
regional bureaus, and our missions around the globe to ensure TIP 
issues are integrated into our broader foreign policy efforts. If 
confirmed, I also look forward to a robust and ongoing engagement and 
consultation with Congress to ensure that the TIP Report remains the 
gold standard for antitrafficking efforts for years to come.

    Question. Please provide the Cuban's Government's National Action 
Plan to Combat Trafficking that the Department cited as one of the 
reasons Cuba was upgraded in the most recent TIP report.

    Answer. The Cuban Government informed the Department in March 2015 
that they were developing a national action plan, which would include 
trafficking in persons. This information was provided at the end of the 
2015 reporting period and was not considered in decisions regarding 
Cuba's tier placement in the 2015 report. In fact, the 2015 TIP Report 
recommends that the Cuban Government ``develop an action plan to 
address sex trafficking and forced labor for males and females.''
    To date, the Government of Cuba has not shared with us a national 
action plan, although in 2013 and 2014 they provided reports of their 
efforts to combat trafficking in persons, which were considered as part 
of our evaluation process.
    Cuba was upgraded in the 2015 TIP Report because of significant 
efforts to comply with the minimum standards for the elimination of 
trafficking, including the prosecution and conviction of 13 sex 
traffickers in 2013 and the provision of services to victims in those 
cases.
    The Cuban Government's antitrafficking efforts, including efforts 
to develop a national action plan to address sex trafficking and forced 
labor, will be one of the many factors taken into consideration when 
determining Cuba's tier ranking in the 2016 TIP Report.

    Question. What actions has the U.S. Government taken since the 
conclusion of the JCPOA to sanction Iran for its ongoing human rights 
abuses and sponsorship of terrorism?

    Answer. The administration's policy regarding Iran's human rights 
abuses and sponsorship of terrorism has not changed as a result of the 
JCPOA. Our unilateral sanctions focused on human rights abuses and 
terrorism will not be affected by the JCPOA, and we will continue to 
enforce them.
    On human rights, we continue to publicly express our concerns 
regarding these abuses, and to work with the international community to 
press Iran to meet its international human rights commitments. We have 
consistently and publicly expressed our concerns about Iran's human 
rights abuses through a range of channels and call on Iran to grant all 
prisoners and detainees full due process rights, in accordance with its 
international commitments.
    The administration will continue to highlight our concerns and 
document human rights violations in our annual Human Rights, 
Trafficking in Persons, and International Religious Freedom reports. 
Additionally, we have partnered with other countries to support and 
adopt resolutions in the U.N. General Assembly and the U.N. Human 
Rights Council highlighting human rights concerns in Iran, and in 
supporting the mandate of the U.N. Special Rapporteur on the Situation 
of Human Rights in Iran.
    Iran's support for terrorism also remains a serious concern for the 
administration, and we are committed to working with our partners in 
the region and around the world to take the necessary steps to counter 
Iranian aggression. The United States has designated Iran as a State 
Sponsor of Terrorism, and that designation and the sanctions 
consequences that flow from it will remain in place under the deal. 
Iranian individuals and entities designated for terrorism will remain 
subject to sanctions, including IRGC-QF Qasem Soleimani and the IRGC-QF 
itself.

    Question. Recent press reports indicate that Russia has facilitated 
Iran's efforts to ship weapons to the Assad regime in Syria. Is Russia 
in violation of existing UNSCRs regarding Iranian arms sales?

    Answer. Full and robust enforcement of all relevant U.N. measures 
is, and will, remain critical. We continue to deter and respond to arms 
sales violations, including through interdiction, sanctions and law 
enforcement measures, and will continue to press the Security Council 
to address and respond to any violations of U.N. Security Council 
resolutions. Where legal and appropriate, we have shared information 
with Russia when transactions might violate U.N. Security Council 
resolutions on Iran.
    The United States takes seriously all credible allegations of 
states facilitating violations of a U.N. arms embargo, and we are 
prepared to pursue action in the Security Council, its sanctions 
committees, other multilateral fora, bilaterally and unilaterally. The 
Department would be happy to brief you on further details in a 
classified setting.

    Question. What specifically is the administration doing to punish 
Iran for its recent ballistic missile test, which, according to the 
United States, was a violation of UNSCR 1929?

    Answer. We believe that Iran's October 10 launch of the ``Emad,'' 
which is a new variant of the Shahab-3 medium range ballistic missile 
inherently capable of delivering a nuclear weapon, was a clear 
violation of U.N. Security Council Resolution 1929 (2010).
    In a meeting of the U.N. Security Council on October 21, U.S. 
Ambassador to the United Nations, Samantha Power, highlighted this 
violation and condemned the launch as destabilizing. Other Security 
Council members joined the United States in condemning the launch as a 
violation, highlighting the widespread international concern with this 
act. These actions alone have demonstrated to Iran that there is a 
political cost for such provocation.
    Additionally, on October 21 the United States, together with 
France, Germany, and the United Kingdom, submitted a joint report on 
the launch to the U.N. Security Council's Iran Sanctions Committee. We 
anticipate that the committee will discuss our report in a meeting this 
month. We have called on the committee, with the support of the 
independent U.N. Panel of Experts, to review this matter quickly and 
recommend appropriate action. We also intend to press the committee to 
engage Iran directly, including to express concern and to ask Iran to 
explain its behavior.
    Further, beyond the U.N. Security Council, we have a range of 
unilateral and multilateral tools available to counter Iran's missile-
related activities. We have imposed on multiple past occasions 
penalties under domestic authorities on foreign persons and entities 
engaged in proliferation-related activities. We are reviewing the facts 
from the recent launch to determine whether such action is warranted in 
this case.
    In the meantime, we are continuing to combat the proliferation of 
missile technology and equipment by working with the more than 100 
countries around the world that have endorsed the Proliferation 
Security Initiative (PSI) and by urging all countries to implement and 
enforce missile-related export controls, such as those established by 
the Missile Technology Control Regime (MTCR).
    Moving forward, full and robust enforcement of all relevant U.N. 
measures will remain critical. We will continue to press the Security 
Council to address and respond to any violations by Iran. While all of 
the provisions of the previous U.N. Security Council resolutions on 
Iran's nuclear program remain in effect, we will continue to insist 
that these resolutions be enforced and that the committee and the Panel 
continue to carry out their respective mandates. We have repeatedly 
underscored this point to all relevant international actors.

    Question. Has Iran violated the arms embargo that it is subject to 
under several UNSCRs since the conclusion of the JCPOA? Please provide 
a list of specific violations as part of a classified response if 
necessary.

    Answer. We believe it is likely that Iran has continued in recent 
months to provide support to the Assad regime in Syria and to the 
Houthis in Yemen in violation of UNSCRs. We would be happy to provide 
additional details in a classified setting.
    We are certainly concerned that Iran continues to violate the U.N. 
sanctions imposed against it, including through illicit procurement and 
arms smuggling. Iran's trafficking of weapons, including to some of the 
most extreme and irresponsible actors in the region, remains a serious 
threat to peace. We continue to deter and respond to such violations, 
including through interdiction, sanctions and law enforcement measures, 
as appropriate.
    To support these efforts, we will continue to invoke the U.N. arms 
restrictions on Iran that exist now in Security Council Resolution 1929 
(2010) and those in Security Council Resolution 2231(2015), which will 
come into effect once we reach Implementation Day. We will also 
continue to invoke other existing U.N. arms embargoes as appropriate, 
including those in Security Council resolutions that target arms 
transfers to the Houthis in Yemen, Shia militants in Iraq, Hezbollah in 
Lebanon, Libya, and North Korea. Full and robust enforcement of all 
relevant U.N. measures is and will remain critical.
    In addition, we still have a number of ways, including through our 
unilateral sanctions authorities, to impose penalties on foreign 
persons and entities involved in Iranian conventional arms transfers. 
The size of the U.S. economy, the power of our financial system, and 
the reach of U.S. unilateral measures give us enormous leverage to 
pressure other countries to abide by restrictions on Iranian arms 
activity.

    Question. Do you agree with Iranian Foreign Minister Zarif's 
statement that Iran does not ``jail people for their opinions?''

    Answer. No. As we noted in our most recent Country Report on Human 
Rights for Iran, during 2014 ``the government arrested students, 
journalists, lawyers, political activists, women's activists, artists, 
and members of religious minorities, charged many with crimes, such as 
`propaganda against the system' and `insulting the Supreme Leader' and 
treated such cases as national security trials.''
    We also noted in the report that ``Iranian law limits freedom of 
speech, including by members of the press. Individuals were not 
permitted to criticize publicly the country's system of government, 
Supreme Leader, or official religion. Security forces and the country's 
judiciary punished those who violated these restrictions and often 
punished as well persons who publicly criticized the President, the 
Cabinet, and the Islamic Consultative Assembly. The government 
monitored meetings, movements, and communications of opposition 
members, reformists, activists, and human rights defenders. It often 
charged persons with crimes against national security and insulting the 
regime based on letters, e-mails, and other public and private 
communications.''

    Question. What specifically do you intend to do to bring home 
American citizens currently detained in Iran and to obtain information 
about the whereabouts of Floridian Robert Levinson?

    Answer. The President and the Secretary of State have repeatedly 
and publicly called for the immediate release of Saeed Abedini, Jason 
Rezaian, and Amir Hekmati, and for the Government of Iran to work 
cooperatively with us to locate Robert Levinson. We will not rest until 
these Americans are reunited with their families in the United States.
    The Secretary consistently raises the cases of detained and missing 
U.S. citizens with his Iranian counterpart when they meet. I also 
raised this issue with the Iranian Government at the first meeting of 
the Joint Commission in Vienna in October. If confirmed, I will 
continue to raise the detained and missing U.S. citizens with Iranian 
officials at all levels at every opportunity.

                               __________
                     thomas shannon's responses to 
                     questions from senator perdue
    Question. What would you say are the most significant implications 
of the JCPOA for U.S. foreign policy broadly? What would be the 
consequences for the region, and our Nation, should this deal unravel, 
or fail to be implemented? To what extent, if any, does the Iran deal 
represent a turning point in United States-Iran relations? Do you view 
this as a limited agreement that does not change the trajectory of 
decades of United States-Iran animosity? What type of future engagement 
do you hope to have with Iran? What do you think is realistic?

    Answer. The goal of the JCPOA is to eliminate the imminent threat 
that Iran will acquire a nuclear weapon. The deal itself will not erase 
decades of Iranian anti-American and anti-Israeli rhetoric and actions. 
We will continue to aggressively counter Iran's support for terrorism 
and its destabilizing activities in the region, working closely with 
Israel, the gulf countries, and our other regional partners. We have 
been clear that we are not suspending or removing sanctions related to 
nonnuclear issues, such as Iran's support for terrorism, its ballistic 
missile activities, its abuse of human rights, or its support for the 
Assad regime, Hezbollah, or the Houthis in Yemen.

    Question. You have mentioned before that this deal with Iran will 
be ``made or broken in its implementation.'' Would you be willing to 
provide to this committee with a list of potential or foreseen Iranian 
violations, and what specific actions would be taken to punish Iranian 
cheating?

    Answer. We remain committed to consulting closely with Congress 
throughout implementation of the Joint Comprehensive Plan of Action 
(JCPOA) and to ensuring that Iran fulfills all of its nuclear-related 
commitments in a verifiable and complete manner. Should Iran fail to 
fulfill any of its nuclear-related commitments, we retain a wide range 
of options to respond, whether in the case of significant 
nonperformance by Iran or more minor instances of noncompliance. For 
example, the United States has the ability to reimpose both national 
and multilateral nuclear-related sanctions in the event of 
nonperformance by Iran. In the case of United Nations (U.N.) sanctions, 
under U.N. Security Council Resolution 2231, we could do so even over 
the objections of any member of the Security Council, including China 
or Russia. Additionally, we have a range of other options for 
addressing minor noncompliance. These include reimposing certain 
domestic sanctions to respond to minor but persistent violations of the 
JCPOA, and using our leverage in the Joint Commission on procurement 
requests.

    Question. Iran's Supreme Leader Khamenei formally endorsed the 
JCPOA, but he also included some caveats. He said that this deal 
commits the West to lift all sanctions and prohibits it from imposing 
any new ones. Khamenei specifically noted that sanctions for terrorism 
or human rights abuses would be violations of the JCPOA, and would then 
oblige the Iranian Government to cease abiding by it.

  <diamond> How does this interpretation of the deal from Iran impact 
        our ability to counter their hegemonic moves in Syria? Is our 
        toolkit limited now? Will this administration support further 
        sanctions on Iran for human rights abuses or terrorism?

    Answer. We are aware of the October 21 letter from the Supreme 
Leader to President Rouhani and note that all sides understand what 
they must to do to reach JCPOA Implementation Day, when the IAEA 
verifies that Iran has taken all of its nuclear related steps under the 
JCPOA and in turn Iran receives relief from nuclear-related sanctions. 
The JCPOA clearly lays out this process, and that will remain the focus 
of the administration. As long as Iran keeps its commitments under the 
JCPOA, we will not reimpose the nuclear-related sanctions lifted under 
the JCPOA.
    We have been clear with Iran, both publicly and privately, that we 
will continue to take the actions we feel necessary, including through 
the use of sanctions, to counter Iran's destabilizing activities, to 
block their support for terrorism, and to address their human rights 
abuses.
    We have condemned Iranian support to Syria's Assad regime--support 
that includes providing not only billions of dollars in funds, but also 
weapons, strategic guidance, training, and mobilization of Shia 
paramilitary fighters from around the region, thus enabling the 
regime's continued repression. We have imposed targeted sanctions on 
Iran's Islamic Revolutionary Guard Corps and its Ministry of 
Intelligence and Security for their support to the Assad regime.

    Question. As you know, on October 10 Iran launched a medium-range 
ballistic missile called the ``Ebad'' missile, which Ambassador 
Samantha Power concluded was capable of delivering a nuclear weapon.

  <diamond> Do you believe this constitutes a violation of the U.N. 
        Security Resolution 2231? How should the U.S. respond to such a 
        violation?

    Answer. The administration is deeply concerned that Iran continues 
to develop a ballistic missile capacity that threatens regional and 
international security. Iran's October 10 missile launch violates UNSCR 
1929, which requires Iran not to ``undertake any activity related to 
ballistic missiles capable of delivering nuclear weapons, including 
launches using ballistic missile technology.''
    We have strongly condemned the launch and are now working with 
allies to raise Iran's violation at the U.N. and increase the political 
costs to Iran of violating its international obligations. As you note, 
Ambassador Power raised the matter in the U.N. Security Council in mid-
October. As followup, together with France, Germany, and the United 
Kingdom, we submitted a joint report on the launch to the Security 
Council's Iran Sanctions Committee. We called on the committee, with 
the support of the independent U.N. Panel of Experts, to review this 
matter quickly and recommend appropriate action.
    Beyond the U.N. Security Council, we have a range of unilateral and 
multilateral tools available to counter Iran's missile-related 
activities. We have imposed on multiple past occasions penalties under 
domestic authorities on foreign persons and entities engaged in 
proliferation-related activities. We are reviewing the facts from the 
recent launch to determine whether such action is warranted in this 
case. In the meantime, we are continuing to combat the proliferation of 
missile technology and equipment by working with the more than 100 
countries around the world that have endorsed the Proliferation 
Security Initiative (PSI) and by urging all countries to implement and 
enforce missile-related export controls, such as those established by 
the Missile Technology Control Regime (MTCR).

    Question. Soon the United States, Russia, and a group of European 
and Middle Eastern countries are preparing international talks to 
accelerate efforts to end the war in Syria.

  <diamond> At this point, are you expecting a negotiated, diplomatic 
        solution? How will President Assad play into this equation? Do 
        you agree with having Assad stay in power for any period of 
        time? What is your opinion of Iran being at the table? Do you 
        think they can play a productive role? Is a negotiated 
        settlement possible with ISIS involved?

    Answer. There is no military solution to the crisis in Syria. 
Attempting to end the civil war by military action will only cause 
greater violence and create further refugee flows, human casualties, 
destruction of institutions and public services--exacerbating human 
suffering. That is why, while we work to degrade and defeat ISIL, we 
are trying to advance a managed, negotiated political transition 
through diplomacy; Secretary Kerry initiated last week's meeting in 
Vienna to do just that.
    Assad cannot unite or govern Syria. His brutality against the 
Syrian people, including chlorine attacks and indiscriminate barrel 
bombing, has cost hundreds of thousands lives and resulted in the 
current crisis in which half of the prewar Syrian population is 
displaced. Last week in Vienna, all participants agreed that any future 
``elections must be administered under U.N. supervision to the 
satisfaction of the governance and to the highest international 
standards of transparency and accountability, free and fair, with all 
Syrians, including the diaspora, eligible to participate.''
    The Secretary of State is clear it is important for all key 
stakeholders to be present, including Iran. However, the invitation for 
Iran to participate in these discussions does not overlook Iran's 
ongoing support for the Assad regime, continued support for terrorist 
organizations like Hezbollah, and its destabilizing regional behavior. 
As the President has said, there cannot be a return to the prewar 
status quo.
    While it is unclear whether the current round of talks will succeed 
in bringing about the transition that the Syrian people deserve, the 
United States is committed to pursuing a negotiated settlement to the 
crisis. As we pursue this diplomatic track, we are also pursuing a 
comprehensive effort to degrade and defeat ISIL in Syria--a goal that 
was affirmed by all participants at last week's Vienna meeting. We have 
conducted over 2,700 strikes against ISIL targets in Syria, and we have 
seen marked success in the campaign over the last year. ISIL's access 
to border crossings has been eliminated from all but 68 miles of the 
600-mile long Turkey/Syrian border and we continue to pursue these 
efforts with over 65 coalition partners.

    Question. Russia's increased military actions in Syria are 
concerning. Particularly when they have said they are targeting ISIS, 
when in reality some 80 percent of their strikes are targeting areas 
not controlled by ISIS. Instead, they are helping to further prop up 
Assad by striking rebel groups.

  <diamond> How willing do you think the Russians are to actually 
        participate in the anti-ISIS coalition?

    Answer. Russia's actions in Syria--where its focus has not been on 
striking ISIL--indicate it is not interested in participating in the 
U.S.-led 65-member Counter-ISIL Coalition. If the Kremlin changes 
course and employs its military in a constructive manner that works 
with the coalition, we would welcome Russia's contribution. We 
appreciate that Russian Foreign Minister Lavrov has agreed to 
participate in the upcoming meeting in Vienna, which will bring 
together 19 international stakeholders to discuss how to end the 
violence in Syria as soon as possible, but Russia still needs to 
recognize that there must be a political transition in Syria that 
includes Assad's departure in order to stop the bloodshed as well as 
the refugee and humanitarian crises.

    Question. What do you see as Russia's motivations for intervening 
in Syria? What are likely consequences for Syria, Russia, and the 
region?

    Answer. It appears that the Russian Government intervened to prop 
up the Assad regime when it observed significant setbacks to the regime 
on the ground. The Kremlin has maintained its actions are driven by a 
desire to fight terrorism, but is also likely motivated by an interest 
in portraying itself as a global leader, while redirecting attention 
away from Ukraine.
    Russia has aligned itself against the vast majority of the Syrian 
people and interjected itself into a sectarian conflict. Moscow asserts 
that its military action is directed at ISIL, but about 80 percent of 
Russian strikes target areas like Hama, Homs, and Aleppo where the 
Assad regime has lost territory to forces led by the moderate 
opposition.
    There is also credible reporting that Russian actions are 
exacerbating an already dangerous refugee outflow, straining European 
countries' ability to cope. Just over the last month, the United 
Nations reports at least 120,000 Syrians have been internally displaced 
as a result of regime offenses aided by Russian airstrikes. In less 
than 2 weeks, 52,800 people were displaced in northern Hama and 
southern Idlib alone.
    We have repeatedly conveyed our concerns to Russian officials that 
its intervention in Syria has aggravated the sectarian divide and the 
humanitarian crisis. We have urged Russia to use its influence to 
compel the Assad regime to stop its attacks against innocent civilians 
and to agree to a political transition.

    Question. What are implications of Russian intervention for U.S. 
military operations against ISIS? What are potential implications of 
Russian intervention for U.S. policy in the region, and U.S. bilateral 
relationships with traditional regional partners?

    Answer. The implications of Russian intervention for U.S. military 
operations against ISIL are twofold: (1) Russian pilots' behavior over 
Syria has been dangerous--indeed, reckless at times--and thus we have 
made efforts to mitigate the danger to our pilots; (2) Russian 
airstrikes have targeted moderate opposition fighting ISIL and allowed 
ISIL to gain territory in some areas, making our counter-ISIL fight 
more difficult.
    On October 20, senior officials from our Department of Defense and 
the Russian Ministry of Defense signed a memorandum of understanding on 
measures to ensure our pilots' safety by minimizing the risk of 
inflight incidents among coalition and Russian aircraft operating over 
Syria. There is no agreement between our two sides on broader military 
coordination beyond flight safety. Some countries neighboring Syria, 
including Israel, Turkey, and Jordan, have also established working 
level military communication mechanisms to avoid misunderstandings and 
unintended confrontations.
    About 80 percent of Russian strikes target areas like Hama, Homs, 
and Aleppo where the Assad regime has lost territory to forces led by 
the moderate opposition. In northern Syria, reports suggest that since 
Russian strikes began, ISIL has acquired more territory, not less.
    We have encouraged our allies and partners to push Russia to employ 
its military to target ISIL and compel the Assad regime to stop its 
attacks against innocent civilians and agree to a political transition.

    Question. Do you think Russia's involvement in Syria is in any way 
good or helpful to U.S. policy interests?

    Answer. We and our allies and partners are pushing Russia to play a 
constructive role in the fight against ISIL and to use its influence 
with the Assad regime to compel it to end its attacks against the 
Syrian people and to agree to a political transition to end the crisis. 
If the Kremlin changes course and employs its military in a 
constructive manner that works with the coalition, it could have a 
positive effect on policy goals in the region, and we would, as 
President Obama has said, welcome Russia's contribution.

    Question. We can see from the latest developments in the Middle 
East that traditional U.S. allies in the region are starting to turn 
toward Russia more in the absence of a stronger U.S. presence. Just 
this weekend, Iraq gave Russia the green light to begin airstrikes 
there, despite U.S. objections. And on October 23, 2015, Russia signed 
an agreement with Jordan to cooperate militarily against ISIS.

  <diamond> What do you think of these moves toward Russia? Is our lack 
        of commitment to Iraq and Syria leading our regional allies to 
        turn to Russia? Do you view that as a problem?

    Answer. The United States remains the most powerful force in the 
Middle East with a web of alliances and partnerships as well as a 
physical presence that is unrivaled. Regional actors have reacted to 
Russia's intervention in various ways, but we are confident that our 
deep and long-standing partnerships with countries such as Jordan and 
Iraq will remain strong as we share the same objectives on the core 
issues of how to best combat ISIL and promote a transition in Syria.
    The Government of Iraq has not approved Russian airstrikes in its 
territory, though some parliamentarians have pressured Prime Minister 
Abadi to do so. Prime Minister Abadi has assured us that the Government 
of Iraq will not invite Russia to conduct airstrikes. We have not seen 
Russia conduct any strikes there, nor take any practical steps in 
preparation to do so in the near term. Similar to the United States, 
Jordan has worked with Russia to ensure the safety of its pilots as 
they conduct operations in regions where Russian aircraft are also 
present.

    Question. In April of 2015, the State Department released its 
second Quadrennial Diplomacy and Development Review (QDDR). Please 
describe what you see as the principal outcomes of the QDDR.

  <diamond> What progress, if any, has been made toward implementing 
        the review's recommendations? What impact, if any, will the 
        review have on the day-to-day conduct of U.S. diplomacy and on 
        the role and functioning of the office of the Under Secretary 
        for Political Affairs?

    Answer. The principal outcomes of the 2015 QDDR are its 
identification and focus on a few big challenges and opportunities, 
both strategic and operational. The review identified four global 
strategic policy priorities that are, in many cases, interrelated: 
preventing conflict and violent extremism, promoting open democratic 
societies, advancing inclusive economic growth, and mitigating and 
adapting to climate change. These policy objectives are relevant to our 
work in nearly all parts of the world and the QDDR provides the State 
Department and USAID with detailed guidance on how we should focus our 
efforts. All four of these strategic priorities were included in both 
the 2015 National Security Strategy and the 2014 State-USAID Joint 
Strategic Plan, but the QDDR makes very specific commitments detailing 
what the Department and USAID will do to advance our objectives in 
these areas.
    Furthermore, the 2015 QDDR includes specific recommendations for 
the bureaucratic reforms we must undertake in order to adapt our 
organizations to support our policy priorities. The QDDR outlines the 
steps we must take to build dynamic organizations including harnessing 
knowledge, data, and technology; promoting innovation; managing 
physical risk; advancing strategic planning and performance management; 
and increasing our engagement with broad sectors of American society, 
economy, and culture.
    Lastly, another principal outcome of the 2015 QDDR is the attention 
given to building a skilled, diverse, and agile workforce. The review 
also presents steps to improve work-life wellness for our employees and 
give support to those who face the greatest risks.
    As the nominee to be Under Secretary for Political Affairs, the 
ongoing implementation of the QDDR recommendations affects a broad 
variety of what would be my portfolio, either directly or via the 
regional and functional bureaus that I would oversee. This includes 
aspects of the strategic policy priorities, organizational reforms, as 
well as workforce issues.
    Since the QDDR's release in late April 2015, progress has been made 
in implementing a broad range of the review's recommendations related 
to the four strategic objectives.

  <diamond> Countering Violent Extremism: Following the February White 
        House summit on Countering Violent Extremism (CVE) the 
        Department supported the organization of eight regional 
        conferences to improve regional coordination. These events have 
        given rise to many ongoing initiatives that are building the 
        capacity of governments, civil society, and local communities 
        to prevent and counter violent extremism and terrorism. In 
        order to elevate CVE as a priority and improve coordination, 
        the Secretary approved centralizing the Department's expanding 
        CVE activities in the Counterterrorism Bureau.
  <diamond> Promoting Resilient, Open, Democratic Societies: The 
        Department, in coordination with interagency partners, is 
        working to create and maintain civic space, promote democratic 
        governance, and support regional frameworks, including through 
        bilateral and multilateral diplomacy, foreign assistance, and 
        partnerships with civil society and the private sector. The 
        Department does so through such international fora as the 
        Community of Democracies, the Open Government Partnership, the 
        Freedom Online Coalition, and such funding initiatives as the 
        Lifeline Embattled Civil Society Organizations Assistance Fund 
        and LIFT (Leading Internet Freedom Technology), in which the 
        Department and like-minded partners assist civil society actors 
        in both open and restrictive environments to engage governments 
        to respect human rights and fundamental freedoms. The 
        Department actively defends the human rights and the inclusion 
        of marginalized and vulnerable groups. It also advocates for 
        the strengthening of international human rights frameworks, 
        institutions, and oversight in an effort to amplify the voices 
        of women, youth, persons with disabilities, displaced persons, 
        indigenous persons, survivors of violence and human 
        trafficking, as well as members of other traditionally 
        marginalized groups. Information-sharing mechanisms are being 
        strengthened to ensure that human rights abuses are taken into 
        account when considering visa eligibility.
  <diamond> Advancing Inclusive Economic Growth: Considerable progress 
        has been made in implementing the QDDR's reform recommendations 
        related to this objective. The six regional bureaus have 
        identified deputy assistant secretaries to lead these bureaus 
        engagement on economic, energy, environmental, oceans, health, 
        and scientific affairs; they meet on a regular basis. 
        Rotational positions are being established for officers to 
        serve in functional bureaus (e.g., economic, energy, oceans/
        environment/scientific affairs) followed by an assignment in a 
        regional bureau. New detail assignments were created to allow 
        Foreign Service officers to serve temporarily in other 
        government agencies, at the state and local level, and with 
        private companies.
  <diamond> Mitigating and Adapting to Climate Change: The United 
        States takes a leading role in confronting the threat of 
        climate change through action both at home and abroad. In 
        addition to efforts to achieve an ambitious, inclusive, and 
        durable U.N. agreement, Under Secretary Catherine Novelli will 
        chair a Department-wide Climate Capacity Building Working Group 
        to better integrate and elevate climate change across our 
        diplomacy and development work.

    Since the QDDR's release the Department has made considerable 
strides in building a more dynamic organization. These reforms are 
already improving our ability to promote our objectives and respond to 
the complex threats and challenges we face. In particular, these 
efforts are leading to improved use of technology to better access, 
organize, and make use of data and information and promoting innovation 
while managing risk.
    The QDDR emphasized the importance of harnessing knowledge, data, 
and technology. The Secretary has launched an initiative to transform 
the way we process information and manage knowledge at the Department. 
Recently we have begun to create two technology platforms to transform 
how our people produce, access, and use information to pursue our 
foreign policy objectives more effectively and efficiently. First, we 
are developing a user-friendly portal through which staff will be able 
to search for a specific issue, region, or person across a wide variety 
of sources (e.g., emails, cables, memoranda). Second, we have set about 
to create a mobile-friendly contact management system to give our 
diplomats on-the-go access to relevant, up-to-date information about 
their foreign counterparts, such as topics discussed during last point 
of contact. Given the personnel transitions that occur every year in 
the Department with the rotational model of the Foreign Service, this 
tool will enable diplomats new to their assignments to quickly get up 
to speed.
    In an effort to make the Department an intelligent and efficient 
consumer of big data, a recommendation also highlighted in the 2015 
QDDR, we are establishing an office for advanced data analytics to 
improve our policy and operational effectiveness in this new era of 
``Big Data.'' This unit will equip the State Department's policymakers 
and subject matter experts with data-driven empirically based analyses 
by fusing quantitative and qualitative insight. It will enhance the 
Department's efforts to integrate data-driven analysis and diplomacy, 
and it will collaborate with our overseas missions and domestic offices 
to make data more accessible to employees and senior leaders. This 
effort will enable the Department to leverage data and information to 
uncover trends; anticipate political outcomes; estimate the impact of 
our policy; minimize costs and risks by reducing uncertainty; foster 
strategic thinking to connect policy to operations; and enhance and 
integrate big-data analytics into our problem-solving and 
decisionmaking.
    The QDDR obligates the Department to foster a culture of innovation 
and creative problem-solving while managing and mitigating risk. 
Earlier this year a new risk management policy was drafted and 
implemented. A Department-wide survey on risk management practices was 
distributed this fall and responses are currently being evaluated in 
order to identify the key components of successful risk mitigation 
programs as well as gaps.
    The implementation of a series of QDDR recommendations to invest in 
our workforce is underway. These initiatives seek to improve the day-
to-day functioning of our workforce by improving skills and work-life 
balance. These efforts recognize that our single most important asset 
as a Department is our people and we have launched several efforts to 
improve training for, and the evaluation of, our workforce. The 2015 
QDDR included specific recommendations to invest in our workforce by 
expanding the core training curriculum, increasing long-term training 
options as well as excursion tours to other agencies. Although 
enrollment at the Foreign Service Institute (FSI) has increased 56 
percent since 2010 while appropriated funding has declined 28 percent, 
we continue to drive innovation in several critical areas. This 
includes developing new content, improving methodology, and increasing 
accessibility of our training programs. The Department is also 
implementing a core curriculum for our personnel and emphasizing 
continued training throughout the course of an employee's career. These 
improvements are enhancing the daily effectiveness of our people in 
carrying out our foreign policy objectives.
    Likewise, we have streamlined and improved the processes we use to 
evaluate staff performance. For example, we have revamped and shortened 
the Employee Evaluation Report used for Foreign Service personnel to 
focus on employee effectiveness in achieving goals, rather than 
focusing on competencies in performing tasks. We have also updated the 
mid-year professional development form to promote earlier and better 
performance related discussions, establish clear expectations and 
goals, and identify areas of excellence and areas for additional 
professional growth.
    The Department has also taken steps to increase the flexibility, 
diversity, and overall work-life wellness of our workforce. These 
efforts, highlighted in the 2015 QDDR, are improving the Department's 
ability to efficiently and effectively promote our strategic priorities 
and deliver foreign assistance. We are working to increase the agility 
of our workforce so that we can get the right people with the right 
skills, in the right place at the right time. The requirement that we 
respond quickly and deploy expertise wherever it is needed is driving 
us to create expanded opportunities for Foreign Service, Civil Service, 
and local staff abroad to take on temporary rotational assignments to 
fill staffing gaps, more quickly align skills with positions and speed 
hiring.
    The QDDR emphasized the need to create a diverse workforce--one 
that more closely reflects the diversity of our Nation. We are 
therefore making significant efforts to recruit and support women, 
minorities, LGBTI persons, and persons with disabilities. Our 
recruitment initiatives include the successful Pickering and Rangel 
fellowship programs, opportunities for military veterans and persons 
with disabilities, the 2012 Diversity and Inclusion Strategic Plan, as 
well as outreach activities across the Nation targeting 
underrepresented student populations.
    Retaining the best personnel requires that we both invest in our 
employees, but also ensure that they can balance their work and 
personal lives. The Secretary established a Work-Life Wellness Task 
Force and launched a Voluntary Leave Bank. The Department's Family 
Liaison Office continues to support careers for eligible family members 
both at our overseas posts as well as domestically. A number of 
flexible work schedule and telework options also exist. As a result of 
these and other efforts, in 2014 the Partnership for Public Service 
found the State Department ranked third among large agencies in their 
annual ``Best Place to Work in the Federal Government'' survey.

    Question. You have spent a lot of your career involved in the 
Western Hemisphere. Democratic conditions in Venezuela have 
deteriorated significantly over the past decade. Recent opinion polls 
show that the ruling Socialist party will be defeated, but observers 
fear that the government will resort to fraud to maintain control of 
the legislature.

  <diamond> Can you discuss your concerns for the upcoming legislative 
        elections in Venezuela? If confirmed, what steps would you 
        recommend taking to ensure the elections are free and fair? And 
        how would you recommend reacting if they are not free and fair?

    Answer. The upcoming legislative elections will be a barometer of 
the well-being of Venezuelan democracy. As the December 6 vote 
approaches, we remain deeply concerned by the Venezuelan Government's 
continuing efforts to prevent opponents from participating in the 
political process. Arresting and imprisoning leading political figures, 
declaring others ineligible to hold public office, and restricting the 
ability of candidates to campaign and communicate with voters are 
significant violations of democratic principles and practices. In such 
an environment, it is hard to see how an election could be fair. 
However, the upcoming elections could still be free, if Venezuelans are 
allowed to go to the polls and there is sufficient guarantee that their 
votes will count.
    If confirmed, I will continue our efforts to convince the 
Venezuelan Government to invite and accredit international electoral 
observers with recognized experience and credibility. I will also 
continue our engagement with others in the region to support a credible 
electoral observation mission. We will also continue our support to 
domestic electoral observation groups.
    It is our hope that these elections will accurately reflect the 
sentiments of Venezuelan voters. In the event that is not the case, we 
would respond in keeping with the Inter-American Democratic Charter and 
the other Inter-American mechanisms. We would do so in consultation 
with partners in the region, and with Congress.

    Question. Earlier this year, the administration imposed sanctions 
against a number of Venezuelan officials found to be involved in human 
rights abuses, including the repression of freedom of expression. At 
the same time, the administration has engaged in bilateral talks, led 
by you, with Venezuelan officials, including President Maduro, 
reportedly in an effort to ease tensions.

  <diamond> What can you tell us about those talks with the Venezuelan 
        Government? What came out of those talks, and are they ongoing? 
        To what extent are we engaging with other Latin American 
        countries regarding the situation in Venezuela?

    Answer. The purpose of my engagement was to create a channel of 
political dialogue through which both countries could express concerns 
about the bilateral relationship. From our point of view, the focus was 
several fold: (1) to express the importance of setting a date for 
legislative elections, to encourage the Government of Venezuela to 
invite credible international electoral observers to evaluate the vote, 
and to address the issue of political prisoners; (2) to stabilize our 
diplomatic relationship and to ensure that our mission in Caracas had 
the personnel and guarantees from the host government to represent our 
interests in accordance with international law and practice; and (3) to 
determine if we shared any common regional interests.
    The talks are ongoing, currently being conducted through our 
diplomatic missions. In some areas, such as setting an electoral date 
and stabilizing and protecting our diplomatic mission, we achieved our 
goal. In other areas, such as the well-being of political prisoners, 
inviting electoral observation missions to participate in the 
legislative elections, and exploration of possible points of common 
regional interest, we continue to engage the Government of Venezuela.
    Part of our broader strategy has been to create an incentive for 
partners in Latin America and beyond to engage with the Government of 
Venezuela, especially on issues related to elections and human rights. 
This has happened, and we will continue to work with our partners in 
the hemisphere to establish a common understanding of the democratic 
and human rights challenges facing Venezuela.

    Question. After two trips to the region, I was pleased to see 
President Obama's announcement regarding the maintenance of U.S. 
military presence in Afghanistan past 2016. What will be the civilian 
component of the U.S. presence in Afghanistan post-2016? What changes, 
if any, are contemplated in the U.S. civilian mission and the State 
Department's role in Afghanistan with respect to the President's 
decision on the military side of the U.S. effort? What do you see being 
the main challenges to success in Afghanistan? What are your thoughts 
on developing a coordinated plan to bring about a credible peace 
process between the Afghan Government and the Taliban, and how is the 
U.S. playing a role?

    Answer. With the assistance and support of the United States and 
other international allies, Afghanistan has made significant progress 
over the last decade, including its first democratic transition of 
power, an extraordinary expansion in access to health and education 
services, and the strengthening of its armed forces as they have 
assumed full responsibility for security. The United States remains 
committed to working with the Afghan Government, the Afghan people, and 
international partners to promote stability and peace in Afghanistan. 
Our bilateral partnership continues to serve the national interests of 
both our nations, including our common interest in ensuring that 
Afghanistan is never again a safe haven for terrorists who threaten the 
region, our allies, and our homeland.
The civilian presence
    Advancing our national interests in Afghanistan requires a capable 
civilian team in Kabul. The President's October 15 announcement to 
sustain our bilateral counterterrorism mission and our participation in 
the NATO train, advise, and assist mission in Afghanistan does not 
alter the Department of State's plans to consolidate Embassy operations 
in Kabul. DOS continues efforts both to streamline operations to ensure 
the Embassy can be self-sufficient and to coordinate planning with DOD 
to accommodate a Security Cooperation Office sometime in the future. A 
significant majority of our personnel are--and will continue to be--
security and life support staff due to Afghanistan's unique operating 
environment.
Challenges
    While significant progress has been made in Afghanistan, the 
country continues to face daunting security, political, and economic 
challenges. In 2015, Afghan National Defense and Security Forces 
(ANDSF) for the first time faced the insurgency largely without the 
direct support of international troops. They took heavy losses and 
experienced significant setbacks, but in many respects they have 
recovered and performed with courage and initiative--including in 
Kunduz. Certain elements, including the U.S.-trained Afghan Special 
Forces, performed exceptionally well. Maintaining Afghan force levels 
in the future and ensuring they have the necessary training and 
equipment will remain a challenge. We are committed to working closely 
with President Ghani, the Afghan Government, and our international 
partners to ensure that Afghan forces are trained and equipped to 
preserve the gains made over the last 13 years.
    Addressing Afghanistan's stagnant economy and high unemployment 
rates will also be a challenge. The declining international presence in 
Afghanistan has been a significant drag on the economy, underscoring 
the importance of developing a more sustainable foundation for economic 
growth and employment generation. We are encouraging the government to 
take steps to increase GDP growth as Afghanistan's population 
increases; address chronic fiscal shortfalls while reducing donor 
dependency; and deliver on its ambitious reform agenda, which includes 
fighting corruption and improving the business climate.
    President Ghani and chief executive officer (CEO) Abdullah have 
collaboratively appointed the majority of senior government officials, 
and we are encouraging them to continue working together on 
implementing the broader reform agenda to ensure political stability.
A credible peace process
    The United States supports President Ghani and CEO Abdullah in 
their call for reconciliation talks with the Taliban. It has long been 
our position that an Afghan-led, Afghan-owned reconciliation process is 
the surest way to achieve stability and end the conflict. As part of 
the outcome of any process, the Taliban and other armed Afghan 
opposition groups must end violence, break any associations with 
international terrorism, and accept Afghanistan's constitution, 
including its protections for women and minorities.

    Question. In your testimony you highlighted your work with partners 
in Africa to fight jihadist ideology. Now, U.S. security assistance to 
Africa has increased dramatically in recent years, most notably to 
support counterterrorism efforts. Several of our key counterterrorism 
partners in Africa, however, are among the world's most fragile states, 
and some are led by regimes associated with significant human rights 
abuses and/or increasing restrictions on political space domestically.

  <diamond> How is the State Department seeking to balance the 
        significant investments in these countries' militaries against 
        concerns about their political trajectories? How sustainable 
        are efforts to counter terrorism if African governments do not 
        improve local conditions for development and open, democratic 
        space?

    Answer. State fragility and the ability of terrorist organizations 
to operate within a country's territory are inextricably linked. A 
country that lacks stable military, political, and law enforcement 
institutions and that is unresponsive to the needs of its citizens 
cannot effectively counter and combat violent extremism, whether 
arising from within or without. When citizens feel free to express 
their opinions and are vested in their domestic political process, they 
come to share with the government the desire to keep violent extremists 
at bay so that their nation and their families can safely prosper. For 
this reason, we employ multipronged approaches to the situation in a 
given country to address all of these issues.
    A large portion of our counterterrorism assistance focuses on 
building the capacities of partner governments' militaries and law 
enforcement agencies to combat insurgencies and reduce terrorist 
threats, as well as to investigate and prosecute suspected terrorists 
in a rule of law framework. Our support for host nation civil society 
organizations is a vital and growing part of the mission. To this end, 
we work with a variety of local nongovernmental organizations to 
advance peace, reconciliation, post-conflict trauma and psychosocial 
healing, and to build resilience of disaffected populations, including 
by providing positive alternatives to youth.
    Our counterterrorism cooperation is not provided in a vacuum. 
Rather, at the same time we are seeking African governments' assistance 
in combating the spread of violent extremist ideologies, we are also 
having conversations with those governments about the need to open 
political space and ensure that their citizens feel invested in their 
common future. Only then can both the citizens' aspirations and the 
country's security both be achieved.

    Question. Since President Obama announced the shift in U.S. policy 
last December, the administration has eased U.S. economic sanctions in 
order to increase travel and trade with Cuba. What additional measures, 
if any, is the administration considering to ease U.S. sanctions toward 
Cuba?

  <diamond> How would you assess the human rights situation in Cuba in 
        the aftermath of the U.S. policy shift? Have you seen a change 
        for the better? To what extent has this shift in U.S. policy 
        toward Cuba had any effect on U.S. relations with other Latin 
        American countries within the region in general?

    Answer. The President's December 17, 2014, announcement of the 
intent to reestablish diplomatic relations with the Government of Cuba 
was overwhelmingly welcomed by countries in Latin America and the 
Caribbean. For example, at the Summit of the Americas in April, the 
Presidents of Costa Rica and Uruguay joined President Obama in a 
meeting with leaders of Cuban civil society. The Pope also requested 
meetings with political dissidents during his September visit to Cuba, 
but the Cuban Government did not permit the meetings to occur.
    The administration has stated it will continue to explore how to 
more effectively engage and empower the Cuban people. As counselor, I 
have not been involved in the planning of future regulatory changes, 
but any such changes would be in furtherance of the administration's 
policy of engagement with, and support for, the Cuban people. We 
believe that facilitating travel, the flow of information, and certain 
types of commerce allows the United States to better advance our 
interests and improve the lives of ordinary Cubans.
    Human rights conditions in Cuba remain deeply concerning. Our new 
policy is based on the premise that we will be more effective in 
promoting human rights if we have diplomatic relations and an Embassy 
in Havana, and that the new policy will shift international attention 
to the Cuban Government's repressive policies. We have successfully 
advocated for the participation of independent civil society, including 
Cuban civil society at international conferences, such as the Summit of 
the Americas and the recent Community of Democracies ministerial 
meeting in San Salvador. And we will continue to encourage other 
countries committed to democratic values to champion them in Cuba.

    Question. Do you think Russia will continue to comply with the 
cease-fire in eastern Ukraine? What are the prospects for the full 
implementation of the Minsk Agreement, including the return to Ukraine 
of portions of the country's border now controlled by Russia? Do you 
think the United Nations should refrain from suspending sanctions on 
Russia until Russia returns the border to Ukrainian control? Why or why 
not? How, if at all, should the U.S. respond?

    Answer. We are pleased that the ceasefire is largely holding in 
eastern Ukraine and the withdrawal of heavy weapons is proceeding. 
However, we are concerned by the Organization for Security and 
Cooperation in Europe's Special Monitoring Mission (OSCE SMM) reports 
of an uptick in small arms fire and shelling, in particular in and 
around Donetsk Airport. Since September 1, more than a dozen Ukrainian 
soldiers have been killed in action and more than 50 have been wounded. 
We have called upon Russia and the separatists to cease these attacks.
    Russia is a party to the Minsk agreements, which it signed in 
February 2015 and in September 2014, but it has not yet lived up to its 
commitments. Under the Minsk Agreements, combined Russian-separatist 
forces must allow OSCE monitors full access to the conflict zone, 
including up to the international border, allow local elections in the 
Donbas under Ukrainian law and monitored by OSCE's Office for 
Democratic Institutions and Human Rights (ODIHR), and return control of 
Ukraine's international border to the Government of Ukraine. Moscow has 
not fulfilled these commitments.
    We have been consistent in our policy, and united with our European 
allies and partners, that sanctions will remain in place until Russia 
implements all of its Minsk commitments, including withdrawing its 
forces and returning the international border to Ukrainian control. As 
we have also consistently stated, our separate Crimea-related sanctions 
will remain in place as long as the Kremlin imposes its will on that 
piece of Ukrainian land.

    Question. In her testimony before the Senate Foreign Relations 
Committee earlier this month, Assistant Secretary of State Victoria 
Nuland called for ``legal, monitored elections'' in areas controlled by 
separatist forces in eastern Ukraine.

  <diamond> Does this formulation signal U.S. support for elections 
        that would not meet the commonly used ``free and fair'' 
        standard? If so, in what ways? Would the U.S.'s role in 
        ``legal, monitored elections'' change at all? If so, please 
        elaborate.

    Answer. The United States supports local elections in eastern 
Ukraine, as prescribed in the Minsk Agreements, to be held under 
Ukrainian law, in accordance with Organization for Security and 
Cooperation in Europe (OSCE) standards and monitored by the OSCE's 
Office for Democratic Institutions and Human Rights (ODIHR). The terms 
``legal'' and ``monitored'' are not alternatives to ``free and fair.'' 
Rather, they address specific concerns that Russian-backed separatists 
would again try to run illegitimate elections of their own, ignoring 
Ukrainian law, OSCE standards, and their Minsk obligations, as they did 
in 2014. We continue to call on Russia and the separatists it supports 
to allow Ukrainians living in the Luhansk and Donetsk Oblasts to 
exercise their democratic right to vote in a secure environment that is 
free from coercion in ``free and fair'' elections. It is important that 
citizens living in the conflict zone, IDPs, and refugees have the 
opportunity to exercise their right to choose their leaders under 
Ukrainian law, monitored by OSCE ODIHR, as asked for in the Minsk 
agreements.

    Question. Haiti's parliamentary election on August 9, 2015, was 
plagued with violence. However, Haiti's Presidential election on 
October 25, 2015, was largely free of violent incidents.

  <diamond> In your opinion, what changed between these two elections? 
        What best practices do you feel were identified in the 
        Presidential election that should be manipulated for the third 
        round of elections coming up in December?

    Answer. In advance of the October 25 round, we worked closely with 
the Provisional Electoral Council and its partners to review the 
recommendations made by the electoral observation missions of the first 
round. Improvements were observed in voter education, the distribution 
of the voter registry, and the training of poll workers. In the days 
leading up to the second round, the United States called on all actors 
to participate fully and peacefully in the electoral process, to abide 
by the rule of law, to pledge to maintain a high standard of 
transparency, and to respond to the election results peacefully.
    Also of note is that additional security measures were put into 
place in advance of the October 25 round. The Haitian National Police 
(HNP) and the U.N. peacekeeping force MINUSTAH deployed an additional 
2,974 security personnel throughout the country, increasing personnel 
in areas that were particularly problematic on August 9. Funds were 
also disbursed earlier to the HNP for the October round. This allowed 
them to purchase the needed vehicles, as well as covered per diem and 
travel costs for officers traveling to polling stations. Finally, U.N. 
peacekeeping forces increased their visibility on Election Day, and HNP 
officers took a more proactive role in dealing with disruptions and 
arresting individuals suspected of fraud or intimidation.
    We continue to engage the Haitian Government and electoral 
officials on the importance of keeping proactive security measures in 
place throughout the tabulation period and after the results are 
announced, and through the third round in December.

    Question. In Haiti, election results are counted at one central 
tabulation center in Port-au-Prince. This means that ballots must be 
physically transported across the country, often on poor, dilapidated 
roads and in unreliable vehicles. Some speculate that this 
transportation and certification of ballots might lead to inaccurate 
vote counts or worse, open a window for elections tampering.

  <diamond> What, if any, role should the U.S. take in helping with 
        elections oversight? Would you encourage Haiti to keep this 
        centralized vote-counting system, or would you encourage them 
        to use multiple tabulation centers placed with geographic 
        strategy?

    Answer. The United States Government has supported and will 
continue to support the work of the Provisional Electoral Council, 
which manages the logistics and tabulation of elections in Haiti, as 
guided by Haitian electoral law. Although we can provide 
recommendations on potential improvements, the process itself is 
planned and run by the Haitian Government. We contributed more than $31 
million in support of Haiti's three rounds of elections. These funds 
have been key to providing support for the participation of women 
candidates; strengthening the Provisional Electoral Council operations 
and logistics, security, and transport; providing technical and 
logistical support to field an independent nongovernmental domestic 
observer group; providing equipment to the Haitian National Police; and 
contributing funding to the multidonor elections basket fund managed by 
the United Nations Development Program. Throughout the tabulation, the 
Organization of American States electoral observer mission, which we 
continue to support, has observers on hand to monitor the process.

                               __________
                     thomas shannon's responses to 
                     questions from senator isakson
    Question. In our office meeting you discussed some of your areas of 
interest, particularly one that we have in common--Africa. Would you 
share for the committee a little bit more about your thoughts on how 
the United States can better engage with African countries--
politically, economically, etc.?

    Answer. The U.S. Government is engaged in Africa across a full 
spectrum of issues, including democracy and governance, economic 
development, security cooperation, and humanitarian assistance. As 
President Obama has made clear through his trips to the continent and 
the African Leaders' Summit, Africa is a clear priority for the 21st 
century--a land of opportunity and growth--and we will continue to 
deepen our engagement in each of these areas.
    We are seizing upon Africa's rich economic potential through 
programs such as Millennium Challenge compacts, Trade Africa, regional 
Trade and Investment Hubs, the Doing Business in Africa campaign, the 
African Growth and Opportunity Act (AGOA), the African Women's 
Entrepreneurship Program. We are investing in Africa's youth through 
programs such as the Young African Leaders' Initiative (YALI). YALI 
participants--the Mandela Washington Fellows--come to study at colleges 
and universities in the United States and then bring their experience 
back to their communities across the continent. These are Africa's 
political, business, and scientific leaders of tomorrow, so our 
investment in them is critical.
    The value of our engagement in promoting free and fair elections 
was evidenced recently in Cote d'Ivoire, where, with assistance 
delivered to local election monitors through USAID, the Ivoirian people 
turned out in large numbers to vote in a free and fair election. We 
will highlight these successes as we engage with the many African 
countries with elections in the coming years.
    In addition, we continue to partner with African governments to 
counter violent extremism. We are bolstering local military capacity to 
counter the threats posed by Boko Haram and al-Shabaab, as well as 
assist in professionalizing and sensitizing African militaries to the 
need for civilian control and respect for human rights. We also partner 
with governments and nongovernmental organizations across the continent 
to develop sustainable strategies to counter trafficking, address labor 
issues and improve the rights of marginalized communities.

    Question. Recently, we heard from Assistant Secretary Anne 
Patterson about how the State Department has been engaged in ``crisis 
management'' throughout the Middle East. Do you think this will be your 
greatest challenge if confirmed? How will you address it? How will you 
be involved in developing the administration's foreign policy strategy, 
which I find to be unclear and undefined at this point in time?

    Answer. Addressing the region's multiple conflicts will be one of 
the top challenges I will work to address, if confirmed. We will 
continue our efforts to reach a political transition in Syria, lead the 
65-member counter ISIL coalition, encourage a resolution to conflicts 
in Libya and Yemen, continue the Secretary's efforts to advance a two-
state solution between the Israelis and Palestinians, implement the 
Joint Comprehensive Plan of Action with Iran, and counter Iran's 
support for terrorism throughout the region and its threatening 
behavior toward Israel and our other partners in the region.
    The United States will remain deeply engaged in efforts to address 
the multiple crises and conflicts in the Middle East. Our engagement 
today is grounded by our deep and enduring commitment to the Middle 
East and to its people. Our engagement will continue to use all the 
sources of American power--the might of our military but also the reach 
of our economy, the determination of our diplomacy, the universality of 
our values, and the powerful attraction of American education, science, 
technology, and innovation.
    This region is home to some of our oldest and closest friends and 
allies. As President Obama has made clear repeatedly, defending them 
against aggression has been, is, and will remain a vital national 
interest of the United States.
    If confirmed, I will provide my best advice and recommendations to 
the Secretary as we carry forward with our engagement in the region. My 
recommendations will be based on my regular consultations with our 
Ambassadors and Assistant Secretaries, as well as my own direct 
engagement on critical issues.

                               __________

 Responses of Laura Holgate, Nominated to be U.S. Represenative to the 
International Atomic Energy Agency and to be U.S.Representative to the 
 Vienna Office of the U.N., to Questions from Members of the Committee

                     laura holgate's responses to 
                     questions from senator corker
    Question. How will the U.S. evaluate the PMD report to be issued by 
the IAEA in December?

    Answer. On July 14, the IAEA and Iran concluded a roadmap for the 
clarification of past and present outstanding issues regarding Iran's 
nuclear program. The roadmap established a time-limited process to 
address the IAEA's concerns regarding past and present issues, 
including the possible military dimensions of Iran's nuclear program. 
The roadmap is a matter of public record, and was posted online on July 
14. On October 15, the IAEA reported that Iran's activities set out in 
the roadmap have been completed on schedule. Under the roadmap, by 
December 15, the IAEA Director General will provide, for action by the 
Board of Governors, the final assessment on the resolution of all past 
and present outstanding issues, as set out in the annex to the 2011 
IAEA Director General's report GOV/2011/65.
    We look forward to receiving the Director General's December 
report, and to considering, along with our fellow P5+1 partners and 
other members of the Board of Governors, appropriate next steps. 
Without prejudging the contents of the Director General's report before 
it has been finalized, we will evaluate it based on our own long-
standing assessments of Iran's past nuclear activities, and taking into 
account Iran's past and present nuclear commitments and the totality of 
circumstances to date. U.S. evaluation of the December report will be 
conducted by U.S. experts throughout the executive branch, including 
the Departments of State and Energy and the Intelligence Community. We 
anticipate the report will address those issues regarding Iran's 
nuclear program outlined in the annex to the 2011 IAEA Director 
General's report (GOV/2011/65), update those areas where the IAEA has 
received new information or made any new assessments, and provide the 
Director General's final assessment on the possible military dimensions 
of Iran's nuclear program.

    Question. Is the IAEA presently capable of true safeguarding or 
merely monitoring and reporting on the nuclear activities of a nation 
with a safeguards agreement? What do you see as the key capabilities 
lacking at the IAEA to truly implement safeguarding globally?

    Answer. Pursuant to the Treaty on the Non-Proliferation of Nuclear 
Weapons (NPT), each non-nuclear-weapon state party to the NPT 
undertakes to accept IAEA safeguards on nuclear material in that state. 
``Safeguards'' is a term of art that describes IAEA activities to 
verify that commitments made by states under safeguards agreements with 
the IAEA are fulfilled with a view to preventing the diversion of 
nuclear material from peaceful uses to nuclear weapons. Although the 
IAEA has the authority under a comprehensive safeguards agreement to 
verify the peaceful use of all nuclear material in a state (i.e., the 
correctness and completeness of the state's declarations), there are 
limitations on the types of information and access the IAEA receives as 
a routine matter under the safeguards agreement.
    An Additional Protocol to the comprehensive safeguards agreement 
equips the IAEA with broader access to information on nuclear and 
nuclear-related activities, and to associated locations. For example, 
the Additional Protocol requires reporting on nuclear research and 
development activities not involving nuclear material, uranium mining 
and milling, waste processing, exports and imports of certain nuclear 
equipment, and the sites surrounding its nuclear facilities, with 
associated inspector access. By enabling the IAEA to obtain a fuller 
picture of nuclear fuel-cycle-related activities in the state, the 
Additional Protocol positions the IAEA to draw a ``broader conclusion'' 
about the absence of undeclared nuclear material and activities in 
those States.

    Question. Should the IAEA have near-real time surveillance 
authority for as many states as possible (including Iran)? Should the 
United States push for this authority? How will you work to expand this 
capability on behalf of the IAEA?

    Answer. The IAEA currently has the authority to implement near-real 
time surveillance in states with comprehensive safeguards agreements in 
force, subject to the agreement of the state. The United States 
encourages the IAEA to implement such remote surveillance where it is 
feasible and appropriate. When such near-real time surveillance is not 
implemented, the IAEA makes use of other measures to ensure that it can 
appropriately safeguard nuclear material in a facility.
    We work with the IAEA closely to ensure that the Agency's 
Department of Safeguards has the equipment and technology necessary to 
fulfill its mandate.

    Question. What role can/should the IAEA play in responding to the 
smuggling of nuclear materials? How should this issue be addressed in 
the next Nuclear Security Summit? What other roles can/should the IAEA 
play in addressing nuclear security?

    Answer. The IAEA has a number of resources available to assist 
member states in responding to a nuclear smuggling incident. The IAEA's 
Division of Nuclear Security manages the Incident and Trafficking 
Database (ITDB) program, which is a voluntary information exchange 
mechanism that allows participating States to share basic information 
about a smuggling incident with the international community. In 
addition, the Division of Nuclear Security, through its Nuclear 
Security Series publications, provides guidance to member states on 
topics such as measures for detecting nuclear and other radioactive 
materials out of regulatory control, nuclear forensics in support of 
investigations, and radiological crime scene management.
    The IAEA does not have the mission or mandate to provide a hands-on 
response or support an active investigation following a smuggling 
incident. However, a member state may request the IAEA's Division of 
Nuclear Security to provide advisory services and/or technical 
expertise following a nuclear or radioactive materials smuggling 
incident. The United States encourages all countries to share relevant 
information on nuclear smuggling attempts while also ensuring 
information and evidence is properly handled to ensure the successful 
prosecution of criminals involved.
    Countering nuclear smuggling is a multifaceted issue that requires 
the development of a variety of capabilities to detect and secure 
illicitly acquired materials, investigate and disrupt smuggling 
networks, and deny smugglers freedom of movement. This issue has been 
an important focus of the Nuclear Security Summit process, and has been 
addressed in Summit Communiques and in various ``Gift Baskets.'' The 
2014 Countering Nuclear Smuggling Gift Basket highlights cooperation 
with the IAEA on this issue, including cooperation on identifying the 
nature of threats and how to coordinate a regional response.
    As the U.S. Sherpa for the Nuclear Security Summit, I have remained 
committed to prioritizing an effective approach to countering nuclear 
smuggling, including through close coordination with the IAEA, and the 
outcomes of the 2016 summit will reflect our progress on this issue. If 
confirmed, I will also continue to make counternuclear smuggling a U.S. 
priority at the IAEA.

    Question. What is your interpretation of the U.S. position on the 
spread of nuclear energy? The spread of enrichment and reprocessing 
technologies?

    Answer. The United States is fully committed to promoting access to 
nuclear energy for peaceful purposes throughout the world in accordance 
with Article IV of the Treaty on the Non-Proliferation of Nuclear 
Weapons. During his April 2009 Prague speech, President Obama stated 
that, ``We must harness the power of nuclear energy on behalf of our 
efforts to combat climate change, and to advance peace and opportunity 
for all people.'' Many states consider nuclear energy to be a viable 
option in meeting their energy needs and addressing climate change.
    The Obama administration has maintained a long-standing U.S. policy 
opposing the spread of enrichment and reprocessing (ENR) technologies. 
We make use of the various tools at our disposal, including negotiation 
of bilateral agreements for peaceful nuclear cooperation with 
responsible partners, to seek to achieve the lowest number of sensitive 
nuclear fuel cycle facilities and technologies, specifically ENR, and 
achieve our nonproliferation goals.

                               __________
                       laura holgate's responses 
                    to questions from senator cardin
    Question. IAEA officials and outside experts have argued that the 
agency faces constraints on its ability to implement its nuclear 
safeguards mission. These include a limited budget; challenges in 
recruiting and retaining qualified personnel; and monitoring new and 
different types of nuclear facilities.

  <diamond> Beyond the nuclear deal with Iran, what are the greatest 
        challenges the IAEA faces in its mission to ensure countries 
        comply with their commitments, under the Non-Proliferation 
        Treaty?

    Answer. As President Obama stated during his 2009 speech in Prague, 
more resources and authorities are needed to strengthen international 
inspections. The United States attaches the highest priority to 
ensuring that the IAEA can fully perform its unique safeguards mission. 
This mission has been challenged by a growing workload in the context 
of worldwide growth in nuclear power as well as by the proliferation 
challenges posed by potential clandestine nuclear programs.
    The IAEA relies on the support of member states for the financial 
resources, qualified personnel, and modern equipment, facilities, and 
analytical capabilities needed to carry out its critical work. Should 
member state support dwindle while the workload continues to increase, 
the IAEA will not be able to maintain the current level of 
effectiveness of the safeguards regime.
    We must continue to work with other member states so that the IAEA 
is provided with sufficient financial resources to address these 
challenges. With respect to human resources, we maintain robust support 
by providing U.S. expertise at no cost to the IAEA. Additionally, U.S. 
support is also directed at efforts to ensure that the IAEA has access 
to up-to-date facilities, analytical techniques, and equipment. Without 
such support, the IAEA would be unable to fulfill its mandate.

                               __________
                       laura holgate's responses 
                   to questions from senator menendez
    Question. If confirmed, what will you do to ensure that members of 
the Senate Foreign Relations Committee are not only notified--but also 
properly consulted--with respect to significant developments at the 
International Atomic Energy Agency (IAEA) and with respect to the Joint 
Comprehensive Plan of Action (JCPOA)?

    Answer. If confirmed, I commit to consult closely with Congress as 
we work toward the successful implementation of the Joint Comprehensive 
Plan of Action (JCPOA), including the IAEA's critical role in verifying 
that Iran is upholding all of its nuclear-related commitments.
    If confirmed, I look forward to a robust and ongoing dialogue with 
the Congress--and in particular, this committee and its staff--
throughout the JCPOA implementation process. I believe full engagement 
with Congress is key to implementing this deal in the long term.

    Question. Does the IAEA have the resources, access, and will to 
judiciously investigate, monitor, and verify compliance of Iran's 
activities with respect to its nuclear program and the JCPOA?

    Answer. Yes, the IAEA has the access and the will it needs for this 
task, and we will work to see that it also receives the necessary 
resources. The IAEA has an established record of implementing 
safeguards agreements worldwide, and in verifying the compliance of 
states with their nuclear obligations. In addition, the IAEA has a 
proven track record of performing additional verification 
responsibilities based on its experience in verifying the Joint Plan of 
Action (JPOA) among the P5+1 and Iran since November 2013.
    We are working with the IAEA and other IAEA Member States to 
provide the IAEA with the reliable and predictable funding it needs to 
provide ongoing, long-term effective verification in Iran. As Director 
General Amano has reported, the IAEA will require increased resources 
in order to fulfill its role in verifying Iran's commitments under the 
Joint Comprehensive Plan of Action (JCPOA). We expect other IAEA Member 
States will join us in providing the IAEA with the resources it needs 
for this special responsibility.
    The JCPOA is based on verification, not trust. IAEA inspectors will 
have access to the entire nuclear supply chain in Iran--its uranium 
mines and mills, its conversion facility, its centrifuge manufacturing 
and storage facilities, and its other declared nuclear sites. Iran will 
also implement the Additional Protocol, which provides the IAEA with 
authority to seek access to any undeclared suspicious locations. Put 
simply, the IAEA has authority for the necessary access when and where 
it needs it.
    We have full confidence in the IAEA's ability to carry out its role 
in monitoring and verifying Iran's nuclear-related commitments.

    Question. What do you see as the major challenges ahead for the 
IAEA with respect to its obligations under the JCPOA?

    Answer. The Joint Comprehensive Plan of Action (JCPOA) puts in 
place vigorous, intrusive, and unprecedented transparency measures to 
enable the IAEA to verify whether Iran is fulfilling its nuclear-
related commitments under the JCPOA. The sanctions-related steps in the 
JCPOA will not be implemented until the IAEA is able to verify that 
Iran has completed key nuclear-related measures.
    As Director General Amano has reported, the IAEA will require 
increased resources in order to fulfill its role in verifying Iran's 
commitments under the JCPOA. We are working with the IAEA and other 
IAEA Member States to provide the IAEA with the reliable and 
predictable funding it needs to provide ongoing, long-term effective 
verification in Iran.

    Question. Based on the first meetings of the Joint Commission, do 
you believe it will be an effective forum for ensuring Iranian 
compliance with the JCPOA? Will the IAEA be an aggressive advocate in 
this setting?

    Answer. The Joint Commission (JC) will play an important role in 
promoting the successful implementation of the Joint Comprehensive Plan 
of Action (JCPOA). All of the JCPOA participants--the P5+1, the 
European Union and Iran--attended the first meeting of the JC. 
Participants focused on establishing the JC's modalities and 
operations. We are committed to ensuring the JC functions effectively 
and serves as a useful forum for monitoring Iran's fulfillment of its 
nuclear-related commitments and facilitating the resolution of issues 
in a timely fashion.
    The IAEA will play an essential role in verifying Iran's nuclear-
related commitments under the JCPOA. The U.N. Security Council has 
requested (in Resolution 2231), and the IAEA Board of Governors has 
authorized, the IAEA and the Joint Commission to consult and exchange 
information, where appropriate, as specified in the JCPOA. We are 
confident in the IAEA and its technical capacity to implement its 
enhanced verification role under the JCPOA, as well as Iran's 
Comprehensive Safeguards Agreement and the Additional Protocol.

    Question. The Iran Sanctions Act expires in 2016. If snapback 
provisions of these sanctions are to be an effective deterrent for 
Iran, as the administration has testified before the SFRC, do you 
support the reauthorization of these sanctions?

    Answer. Because the Iran Sanctions Act does not expire until 2016, 
we believe that discussion of reauthorization at this time is 
premature. The United States has made it very clear that should Iran 
violate its commitments under the JCPOA after we have suspended 
sanctions, that we will be able to promptly snap back both U.S. and 
U.N. sanctions.

                               __________
                       laura holgate's responses 
                    to questions from senator rubio
    Question. Since the signing of the Joint Comprehensive Plan of 
Action with Iran, have any officials of any foreign governments 
indicated to the United States Government that they are reassessing 
their national policies regarding enrichment and reprocessing?

  <diamond> If so, which countries and what were the circumstances of 
        these conversations? Please provide a classified response if 
        necessary.

    Answer. Please see the classified answer to this question provided 
through separate channels.

    Question. Please provide a briefing for the oversight committees of 
any discussions that have been had with the United Arab Emirates 
regarding their nuclear cooperation agreement with the United States 
since the signing of the JCPOA.

    Answer. Please see the classified answer to this question provided 
through separate channels.

    Question. What steps has Iran taken as required by October 15 under 
the JCPOA to complete its obligations under the IAEA-Iranian 
``Roadmap?'' Provide a classified response if necessary.

    Answer. Pursuant to the IAEA-Iran ``Roadmap for the Clarification 
of Past and Present Outstanding Issues Regarding Iran's Nuclear 
Program,'' concluded on July 14, 2015, Iran has taken several steps to 
fulfill its commitments.
    On August 15, the IAEA Secretariat informed member states that Iran 
had provided to the Agency its explanations in writing and related 
documents as agreed in the roadmap. On September 8, the IAEA submitted 
questions regarding this information.
    As committed to in the roadmap, technical-expert meetings, 
technical measures, and discussions were organized in Tehran to address 
these questions. In addition, for the first time, the IAEA has obtained 
access to a location at Parchin, which the IAEA regarded as essential 
for the clarification of outstanding issues concerning Iran's nuclear 
program.
    On October 15, 2015, the Secretariat informed member states that, 
in the period to October 15, 2015, activities set out in the roadmap 
were completed.
    By December 15, 2015, the Director General will provide, for action 
by the Board of Governors, the final assessment on the resolution of 
all past and present outstanding issues.

    Question. Which specific scientists did Iran provide the IAEA with 
access to as part of the ``Roadmap?'' Please list names, titles, and 
affiliations. Provide a classified response if necessary.

    Answer. The International Atomic Energy Agency (IAEA) and Iran 
agreed on a time-limited ``Roadmap'' for Iran to address the IAEA's 
concerns, including those specific issues set out in the IAEA Director 
General's November 2011 report on possible military dimensions of 
Iran's nuclear program. Under this roadmap, the IAEA submitted 
questions to Iran regarding information provided to the IAEA by Iran. 
Iran committed to technical-expert meetings, technical measures, and 
discussions 
to be organized in Tehran by October 15, 2015, to address these 
questions. The 
IAEA confirmed on October 15 that all activities required under the 
roadmap were completed.
    The Director General will provide, for action by the Board of 
Governors, the final assessment on the resolution of all past and 
present outstanding issues. We cannot prejudge the substance and 
quality of Iran's cooperation with the IAEA before the Director General 
has issued his report.

    Question. Which scientists has Iran continued to refuse access to 
that the United States believes were involved in Iran's past nuclear 
weaponization efforts? Provide a classified response if necessary.

    Answer. The International Atomic Energy Agency (IAEA) and Iran 
agreed on a time-limited ``Roadmap'' for Iran to address the IAEA's 
concerns, including those specific issues set out in the IAEA Director 
General's November 2011 report on possible military dimensions of 
Iran's nuclear program. Under this roadmap, the IAEA submitted 
questions to Iran regarding information provided to the IAEA by Iran. 
Iran committed to technical-expert meetings, technical measures, and 
discussions to be organized in Tehran by October 15 to address these 
questions. The IAEA confirmed on October 15 that all activities 
required under the roadmap were completed.
    The Director General will provide, for action by the Board of 
Governors, the final assessment on the resolution of all past and 
present outstanding issues. We cannot prejudge the substance and 
quality of Iran's cooperation with the IAEA before the Director General 
has issued his report.

    Question. Has the IAEA been given access to all of the data 
generated as part of Iran's weaponization work and do any copies of 
this data remain under Iranian control? Provide a classified response 
if necessary.

    Answer. The IAEA laid out the large breadth of information in its 
possession regarding possible military dimensions of Iran's nuclear 
program in a 2011 report to the Board of Governors, including 
information received from more than 10 member states. Under the roadmap 
concluded with Iran on July, 14, 2015, Iran has provided additional 
explanations in writing and related documents to the IAEA. The IAEA 
then submitted to Iran questions regarding this information, and Iran 
has completed specified steps under the roadmap to address these 
questions.
    The Director General will provide, for action by the Board of 
Governors, the final assessment on the resolution of all past and 
present outstanding issues. We cannot prejudge the substance and 
quality of Iran's cooperation with the IAEA before the Director General 
has issued his report.
    I defer to the Intelligence Community on any questions on the 
disposition of specific Iranian documents or data.

                               __________
                     laura holgate's responses to 
                     questions from senator perdue
    Question. Does the IAEA have the funds to serve as an adequate 
verification mechanism for the Iran nuclear agreement?
    Answer. We are working with the IAEA and other IAEA Member States 
to provide the IAEA with the reliable and predictable funding it needs 
to provide ongoing, long-term effective verification in Iran. As 
Director General Amano has reported, the IAEA will require increased 
resources in order to fulfill its role in verifying Iran's commitments 
under the Joint Comprehensive Plan of Action (JCPOA). He has estimated 
the total additional cost, post-Implementation Day, to be =9.2 million 
per year for JCPOA-specific costs beyond safeguards implementation, 
including the provisional application of the Additional Protocol. We 
expect other IAEA Member States will join us in providing the IAEA with 
the resources it needs for this special responsibility.

    Question. Do you think that other monitoring regimes the IAEA is 
responsible for conducting will suffer due to the increased budget need 
for the Iran deal? If so, to what extent?

    Answer. We are working with the IAEA and with other IAEA Member 
States to ensure that the IAEA's role in verifying the JCPOA does not 
negatively impact the effectiveness of its global safeguards mission. 
The IAEA applies safeguards worldwide to verify that non-nuclear-weapon 
states are not diverting nuclear material or pursuing clandestine 
nuclear programs.

    Question. The July 2015 JCPOA states that the IAEA will pursue 
drawing a ``broader conclusion that all nuclear material in Iran 
remains in peaceful activities.'' Please explain the process by which 
the agency draws this conclusion. And if Iran is not willing to share 
this information, how will the IAEA make a conclusion that says Iran is 
in compliance?

    Answer. The ``broader conclusion'' means the IAEA has concluded 
that all nuclear material in a State remains in peaceful activities. 
The IAEA will only draw such a conclusion for States that are fully and 
effectively implementing both a comprehensive safeguards agreement 
(CSA) and the Additional Protocol (AP). A broader conclusion is drawn 
on the basis of IAEA inspector activities and a comprehensive 
evaluation of information available to the IAEA to ascertain that there 
are no indications of diversion of declared nuclear material from 
peaceful nuclear activities in a State, and no indications of 
undeclared nuclear material or activities in a State. When the IAEA 
reaches this point in its evaluation of a State, the Secretariat can 
draw the broader conclusion that all nuclear material in a State 
remains in peaceful activities. As of the end of 2014, the IAEA has 
drawn the broader conclusion for 65 of the 118 States with a CSA and AP 
in force.
    Implementation of the AP provides the IAEA with broader access to 
information and locations relevant to nuclear activities in a State, 
which significantly increases the IAEA's ability to determine whether 
there are any undeclared nuclear materials or activities in a State. As 
the IAEA implements these measures in Iran, as in other States, it will 
need to work with Iran to resolve any discrepancies, anomalies, or 
questions and inconsistencies that may arise concerning Iran's 
declarations. Cooperation from Iran in addressing these issues will be 
important for the IAEA to be in a position to draw the broader 
conclusion that all nuclear material in Iran remains in peaceful 
activities.

    Question. Are Additional Protocols strong enough to detect 
countries' (particularly Iran's) clandestine nuclear weapons programs?

    Answer. Yes. Although the IAEA has the authority under a 
comprehensive safeguards agreement to verify the peaceful use of all 
nuclear material in a State (i.e. the correctness and completeness of 
the State's declarations), there are limitations on the types of 
information and access the IAEA receives as a routine matter under the 
safeguards agreement. The Additional Protocol equips the IAEA with 
broader access to information on nuclear and nuclear-related 
activities, and to associated locations. For example, the Additional 
Protocol requires reporting on nuclear research and development 
activities not involving nuclear material, uranium mining and milling, 
waste processing, exports and imports of certain nuclear equipment, and 
sites surrounding nuclear facilities, with associated inspector access. 
By enabling the IAEA to obtain a fuller picture of nuclear fuel-cycle-
related activities, the Additional Protocol positions the Agency to 
draw a ``broader conclusion'' about the absence of undeclared nuclear 
material and activities in those States.
    Under the JCPOA, Iran will provisionally apply the Additional 
Protocol pending its entry into force, ensuring the IAEA can seek 
access to any undeclared location. In addition, the JCPOA provides for 
additional transparency measures, including a special access provision 
regarding access to undeclared locations. Put simply, the IAEA will 
have access when and where it needs it, for verification of the JCPOA. 
We are not relying on trust in monitoring Iran's commitments. Rather, 
the Joint Comprehensive Plan of Action puts in place vigorous, 
intrusive, and unprecedented transparency measures, including the 
Additional Protocol, to verify that Iran does not pursue a nuclear 
weapon. Implementation of the Additional Protocol and JCPOA 
transparency measures are also intended to deter Iran from cheating by 
creating a high likelihood that such cheating would be caught early.

    Question. As the U.S. Representative to the IAEA, how would you 
handle a country who asks to enter into secret side agreements with the 
IAEA?

    Answer. The IAEA is required to maintain a regime to protect 
unauthorized disclosure of all confidential information that the IAEA 
acquires, including such information that comes to the IAEA's knowledge 
in the implementation of safeguards agreements and the Additional 
Protocol. For example, it is standard practice that IAEA safeguards 
agreements have ``subsidiary arrangements'' that provide additional 
detail on how the safeguards agreement will be implemented. These 
arrangements between the IAEA and individual states typically include 
proprietary and other sensitive information, and are therefore treated 
as confidential documents that the IAEA does not release to other 
member states. Neither we nor other member states have the authority to 
demand these documents from the IAEA, and the IAEA does not have the 
authority to release them.
    The United States relies upon the integrity of the IAEA's 
confidentiality regime to protect information that it shares with the 
IAEA under its own safeguards agreements. Indeed, the United States 
Senate recognized the importance of confidentiality in its resolution 
of ratification for the U.S.-IAEA Additional Protocol.

    Question. In your opinion, is the IAEA doing enough to improve 
nuclear security around the world? If not, what more would you suggest 
it do? What is your opinion of the expansion of nuclear energy to 
states where there is little infrastructure, funding or oversight 
culture, such as nondemocratic countries in Africa and Asia? Should the 
United States be encouraging those states to import nuclear power 
plants?

    Answer. In a world of challenging and evolving threats, nuclear 
security requires constant and continuous attention. This is 
essentially a state responsibility, and the international community 
must always strive to improve nuclear security. The IAEA plays a 
critical role in coordinating nuclear security activities and providing 
support to member states in their efforts to improve nuclear security. 
We look forward to hosting the Nuclear Security summit next year, and 
further strengthening the central coordinating role of the IAEA is one 
of the summit's key goals. Some of the invaluable services the IAEA 
provides include developing a wide range of nuclear security guidance 
documents, providing training, performing nuclear security peer review 
missions around the world, helping states to assess and improve their 
national nuclear security systems, and convening specialized meetings 
at which member states can exchange information. The IAEA also serves 
as the depositary for key international conventions and agreements 
related to nuclear security, for example, the Convention on the 
Physical Protection of Nuclear Material. It hosted a Minister-level 
nuclear security conference in 2013, and plans to host a second 
conference in December 2016 to maintain leader-level attention on this 
important topic. The IAEA's Division of Nuclear Security has undertaken 
this broad range of needed activities and continues to provide 
essential services, and as a newly established division of the IAEA 
(January 2014), the Division of Nuclear Security has room to grow and 
expand these activities.
    The United States is fully committed to promoting access to nuclear 
energy for peaceful purposes throughout the world in accordance with 
Article IV of the Treaty on the Non-Proliferation of Nuclear Weapons. 
During his April 2009 speech in Prague, President Obama stated that, 
``We must harness the power of nuclear energy on behalf of our efforts 
to combat climate change, and to advance peace and opportunity for all 
people.'' Many States consider nuclear energy to be a viable option in 
meeting their energy needs and addressing climate change.
    However, for States pursuing nuclear energy, the development and 
implementation of an appropriate infrastructure to support the 
successful introduction of nuclear power and its safe, secure, 
safeguarded, and efficient use is an issue of great importance. The 
IAEA is uniquely positioned to provide the guidance and support states 
need to establish that infrastructure. The United States has been a 
consistent supporter of the IAEA's efforts, in particular through the 
Peaceful Uses Initiative. It has been an effective way of leveraging 
U.S. expertise and experience in safety, security and nonproliferation, 
and reaching a broad range of countries.
    If confirmed, I would promote the IAEA's central role in 
strengthening nuclear security as well as promote further strengthening 
of the Division of Nuclear Security's many activities and services.

    Question. In 2007 you authored an article entitled ``Preventing 
Nuclear Terrorism,'' and in several speeches since then, you have 
argued that the path toward a secure nuclear future must involve 
engaging all relevant voices and aligning the objectives of nuclear 
commerce and nonproliferation. Is the IAEA involved in any in-country 
or cultural education regarding nuclear materials and the danger of 
such materials being used for terrorism? If not, do you think it should 
be? If so, what organizations do you think would serve as good 
partners?

    Answer. Nuclear terrorism is one of the most challenging threats to 
international security. The most effective means to address the threat 
of nuclear terrorism is for countries around the world to establish 
strong nuclear security measures to prevent terrorists from acquiring 
nuclear or other radioactive materials needed for a nuclear or 
radiological explosive device. The IAEA plays a central role in the 
international nuclear security architecture, including by developing 
and disseminating nuclear security guidance to member states, advancing 
nuclear security education programs in academia, managing the nuclear 
and radiological ``Incident and Trafficking Database'' (ITDB), 
supporting the development of a collaborative network of nuclear 
security training and support centers, and providing training courses 
and workshops on implementing nuclear security culture.
    Other international organizations and initiatives with nuclear 
security-related mandates, such as the International Criminal Police 
Organization, the Global Initiative to Combat Nuclear Terrorism, the 
Global Partnership Against the Spread of Weapons and Materials of Mass 
Destruction, the United Nations, and the Nuclear Forensics 
International Technical Working Group, also play important roles in 
enhancing global nuclear security and countering the threat posed by 
nuclear terrorism. The World Institute for Nuclear Security provides a 
unique and critical ability to engage industry, public health, and 
commercial actors. The United States recognizes the importance of these 
complementary efforts and encourages the IAEA to continue its leading 
role in coordinating activities to enhance cooperation and avoid 
duplication.

    Question. The President, in his budget request for fiscal year 
2016, requested $2 million in funding for the Comprehensive Nuclear 
Test-Ban-Treaty Organization (CTBTO Preparatory Commission), even 
though Congress rejected becoming a signatory to the Comprehensive 
Nuclear Test-Ban-Treaty (CTBT) in 1999. Do you think the United States 
should contribute funds to the CTBTO's International Monitoring System 
when we are not even a party to the treaty? Why or why not?

    Answer. The Comprehensive Nuclear-Test-Ban Treaty's (CTBT) 
International Monitoring System (IMS) has been fully supported by the 
Clinton, Bush, and Obama administrations, and the U.S. Congress has 
provided funds as requested by the administration to support the IMS. 
The IMS is over 85 percent complete, with 281 installed and certified 
monitoring facilities. Data from the IMS flows continuously to the U.S. 
National Data Center (USNDC) at the Air Force Technical Applications 
Center. The IMS data received are regularly used by the USNDC to 
supplement U.S. national means and methods used to monitor for nuclear 
explosions. The open nature of the high-quality monitoring data 
produced by the IMS and its analysis by the CTBTO Preparatory 
Commission's International Data Centre provides other nations with a 
trustworthy and transparent monitoring capability that they can use to 
make their own informed assessments. It also provides them with 
confirmation of U.S. verification judgements. Beyond this role, IMS 
data have made important contributions to monitoring hazardous natural 
phenomena such as tsunamis, earthquakes, volcanic eruptions, and 
meteorite strikes. Perhaps even more significantly, IMS data also 
helped to track man-made hazards, such as the radioactive debris from 
the Fukushima reactor in Japan. The IMS has proven itself to be a 
highly valuable resource, even in the absence of the CTBT's entry into 
force, and continued funding is necessary to both continue its 
operations and complete the remaining monitoring facilities.

    Question. In 2006, 2009, and again in 2013, North Korea announced 
that it had conducted successful nuclear bomb tests. In September of 
this year, North Korea not only announced their plans to launch a 
rocket that could lead to an intercontinental ballistic missile, but 
also that their main nuclear complex at Yongbyon has been restarted and 
that they intend to bolster their nuclear arsenal. If North Korea tests 
another nuclear device, will the CTBTO's International Monitoring 
System be able to detect it?

    Answer. With respect to the three declared North Korean nuclear 
explosions, the International Monitoring System (IMS) performed well, 
and the IMS has actually improved dramatically over the intervening 
years. In 2006, 20 seismic stations and one radionuclide station 
detected North Korea's test. In 2009, 61 seismic stations detected 
North Korea's second event and established its location with a 
certainty of +/^ 10 kilometers. And in 2013, 94 seismic, two 
infrasound, and two radionuclide stations detected North Korea's test. 
The main reason for this greater detection ability is the progress that 
has been made in building out the IMS. There were 153 certified 
stations in 2006; today there are 281.
    The ability of the IMS to detect a future North Korean nuclear 
explosion will depend on many factors, such as the explosive yield of 
the nuclear device, its depth of burial, efforts to decouple the 
explosive force of the detonation from the surrounding media, and 
containment of radionuclide particulates and gases.
    It is important to note that, in addition to the IMS, once the CTBT 
enters into force, an onsite inspection can be conducted to resolve 
ambiguities regarding the nature of a detected event. Such an 
inspection would employ an impressive array of equipment and experts to 
determine whether or not a nuclear explosion has been carried out in 
violation of the treaty. The State Party subjected to such an 
inspection cannot refuse to allow it to take place. This ``challenge 
inspection'' is unique to the CTBT; it does not exist in any other 
nuclear testing limitation treaty or agreement.

    Question. How do you plan, if confirmed, to work to promote U.N. 
reform efforts, such as reducing U.S. assessment levels, keeping U.N. 
agency or program budget growth under control, and increasing the 
efficiency and accountability of the Secretariat staff? What are your 
main priorities for this role? What challenges do you foresee?

    Answer. The Obama administration is committed to achieving a 
reformed and renewed U.N. that fulfills its mandates while operating 
effectively and within its means. The administration has pushed 
aggressively for sound management, budgeting, and accountability at the 
U.N. and throughout the U.N. system and related/affiliated 
organizations, and has achieved notable successes on behalf of U.S. 
taxpayers. Many member states look to the United States, as a major 
contributor and leader on financial and administrative issues, to be at 
the forefront of pressing for these reforms. If confirmed, I will 
continue the effort to pursue a comprehensive reform agenda in Vienna, 
in coordination with the U.S. Ambassador to the U.N. and the rest of 
the U.S. delegation to the U.N.
    Since the 1990s, the general policy of the U.S. Government on 
international organization assessed budgets has been, and continues to 
be, zero nominal growth (ZNG). As national governments reduce 
expenditures abroad and domestically, there is a continuing need to 
restrain growth in international organization budgets. While there have 
been occasional exceptions under this policy to advance compelling U.S. 
interests, the Department of State has had good success limiting budget 
growth at many U.N. organizations, with negotiations during 2015 
resulting in no-growth assessed budgets at organizations such as the 
Food and Agriculture Organization, International Labor Organization, 
International Maritime Organization, International Telecommunication 
Union, U.N. Educational, Scientific, and Cultural Organization, and the 
World Health Organization.
    The Department of State is working with our allies across the U.N. 
system to urge the Secretary General to control the growth in staff 
costs--a major driver of U.N. budget growth over the last decade. Our 
efforts resulted in a multiyear pay freeze that is expected to bring 
U.N. compensation back to the desired level by 2016. If confirmed, I 
will do my part to press the international organizations in Vienna to 
contain budget growth to the greatest extent possible and to 
demonstrate a sustained effort to identify offsets and absorb proposed 
increases without reducing operational effectiveness, while also 
protecting those programs most important to U.S. interests.
    At the same time the U.N. and other international organizations 
must continue to strengthen their mechanisms for ensuring transparency, 
effective oversight, and accountability. The Department of State 
successfully spearheaded an initiative to establish permanent public 
access to evaluation and audit reports by the U.N.'s Office of Internal 
Oversight Services and we will continue to be a vocal supporter for 
operational independence of the OIOS. The Department of State will 
continue to strengthen ethics offices and independent audit committees 
in each of the funds and programs and specialized agencies, and 
related/affiliated organizations. We will advocate for further 
improvements to whistleblower protection policies that demonstrate best 
practice in protecting whistleblowers from retaliation.
    The United States is a strong proponent of ensuring that the staff 
of the U.N. and other international organizations are held accountable. 
If confirmed, I will support continued efforts to advocate for reforms 
that facilitate recruiting highly skilled staff in a timely manner, 
while promoting top performers, getting rid of underperformers, 
encouraging mobility, and providing professional development.

    Question. In your view, what are the major areas of the UNODC's 
work that are of highest interest to the United States? What are the 
U.S. policy objectives for the upcoming U.N. General Assembly special 
session on the world drug problem in 2016? Do you expect that these 
objectives will be met?

    Answer. The Department of State supports UNODC assistance programs 
that focus on strengthening criminal justice institutions, providing 
legislative assistance, and assisting with the establishment of drug 
demand reduction and treatment programs. UNODC is the primary 
international organization that supports implementation of the three 
international drug control conventions, the U.N. Convention against 
Transnational Organized Crime, and the U.N. Convention against 
Corruption. The United States served as the primary architect of all 
five of these conventions, which mirror and globalize U.S. 
counternarcotics and anticrime standards, and supporting UNODC work to 
promote the implementation of these instruments is among our highest 
priorities for the organization. The Department of State also strongly 
supports UNODC capacity building programs to strengthen legislative 
frameworks and strengthen global enforcement efforts targeting 
antimoney laundering and counterterrorist financing; illicit wildlife 
trafficking; migrant smuggling and trafficking in persons; and illegal 
drug threats, particularly the growing threat posed by new psychoactive 
substances.
    Regarding the 2016 U.N. General Assembly Special Session, the 
Department of State views this meeting as a valuable opportunity to 
analyze the achievements, gaps, and challenges in countering the world 
drug problem. Our priorities for the UNGASS are: (1) to reaffirm the 
enduring value of the three U.N. drug conventions and the international 
community's commitment to them, (2) to promote a public-health 
approach, (3) to encourage justice sector innovations, and (4) to 
reinforce the need for international cooperation to fight organized 
crime. We believe that there is broad consensus among governments 
behind these priorities. Civil society has a crucial role to play in 
this process. Nongovernmental organizations fill a crucial role in 
ensuring that governments address the international drug problem justly 
and transparently, as well as treat people with dignity.

    Question. In what ways does the U.S. Government benefit from the 
donor funds it provides to UNODC to combat crime, drug, and terrorism 
related issues? What capabilities does UNODC provide that the U.S. 
Government cannot achieve through other means? Has the United States 
found that any UNODC programs duplicate other U.N. system programs? Has 
the United States found inefficiencies in UNODC operations? What 
efforts have been made to evaluate the effectiveness and impact of 
UNODC activities?

    Answer. UNODC is the primary mechanism through which the 
international community sets criminal justice and law enforcement 
standards, pools resources, shares best practices and other expertise, 
and works together to close off safe havens to crime, drugs, and 
terrorist groups. U.S. contributions to UNODC support anticrime and 
counterdrug treaty implementation activities that directly advance U.S. 
interests and globalize international norms based on U.S. standards, 
law, and practice. U.S. support for UNODC also effectively leverages 
political and financial contributions from other states, making U.S. 
support a critical force multiplier.
    We believe UNODC programs provide valuable technical assistance to 
member states on the full range of issues that UNODC addresses, 
including counterterrorism, counterpiracy, trafficking in persons, and 
governance and the rule of law. UNODC endeavors to work with other U.N. 
agencies in a mutually reinforcing way that avoids unnecessary 
duplication of effort and costs. Nevertheless, promoting greater 
coordination and coherence of U.N. entities on counterterrorism, and in 
general, is a priority for the United States on which we regularly 
engage the U.N.
    The Department of State works closely with UNODC to ensure 
monitoring and evaluation are included in program planning supported by 
U.S. contributions. UNODC also has an Independent Evaluation Unit, 
which the United States helped create and which plays a vital role in 
the oversight and evaluation of UNODC programs by an independent 
source. Finally, the Department actively participates in the governing 
bodies of these organizations, thereby shaping their programmatic 
direction and priorities.

                               __________
                     laura holgate's responses to 
                     questions from senator isakson
    Question. What will be the biggest challenges to verifying Iran's 
compliance with the JCPOA?

    Answer. The IAEA has an established record of implementing 
safeguards agreements worldwide, and in verifying the compliance of 
states with their nuclear obligations. In addition, the IAEA has a 
proven track record of performing additional verification 
responsibilities based on its experience in verifying the Joint Plan of 
Action among the P5+1 and Iran since November 2013.
    The Joint Comprehensive Plan of Action (JCPOA) puts in place 
vigorous, intrusive, and unprecedented transparency measures to enable 
the IAEA to verify whether Iran is fulfilling its nuclear-related 
commitments under the JCPOA. The sanctions-related steps in the JCPOA 
will not be implemented until the IAEA is able to verify that Iran has 
completed key nuclear-related measures.
    As Director General Amano has reported, the IAEA will require 
increased resources in order to fulfill its role in verifying Iran's 
commitments under the JCPOA. We are working with the IAEA and other 
IAEA Member States to provide the IAEA with the reliable and 
predictable funding, personnel, and technology it needs to provide 
ongoing, long-term effective verification in Iran.

    Question. Do you think the IAEA will be able to handle the 
additional work required by the JCPOA? If confirmed, how will you use 
your position to inform Congress of the challenges and opportunities 
the IAEA faces?

    Answer. Yes. The IAEA has the expertise and the capabilities needed 
to implement the verification regime specified in the JCPOA. The IAEA 
has an established record of implementing safeguards agreements 
worldwide, and in verifying the compliance of states with their nuclear 
obligations. In addition, the IAEA has a proven track record of 
performing additional verification responsibilities based on its 
experience in verifying the Joint Plan of Action among the P5+1 and 
Iran since November 2013. We have full confidence in the IAEA's ability 
to carry out its role in monitoring and verifying Iran's nuclear-
related commitments.
    We are working with the IAEA and with other IAEA Member States so 
that the IAEA's performance of its role in the JCPOA does not 
negatively impact the effectiveness of its global safeguards mission. 
The IAEA applies safeguards worldwide to verify that non-nuclear-weapon 
states are not diverting nuclear material or pursuing clandestine 
nuclear programs.
    If confirmed, I look forward to closely engaging with Congress 
about the important role of the IAEA--not just in verifying Iran's 
nuclear commitments under the JCPOA, but in performing its unique 
safeguards and other missions worldwide. If confirmed, I also look 
forward to close consultation with Congress as the IAEA works to 
implement the JCPOA verification regime and to an ongoing dialogue 
about how the U.S. can continue to support the IAEA's other critical 
missions.

    Question. What is your level of confidence in the current review of 
Iran's PMD and the dismantling of their nuclear facilities to come into 
compliance with the JCPOA?

    Answer. On July 14, the IAEA and Iran concluded a roadmap for the 
clarification of past and present outstanding issues regarding Iran's 
nuclear program. This roadmap established a time-limited process to 
address the IAEA's concerns regarding past and present issues, 
including the possible military dimensions of Iran's nuclear program.
    The next step is for the IAEA Director General to provide, by 
December 15, the final assessment on the resolution of all past and 
present outstanding issues, as set out in the annex of the 2011 IAEA 
Director General's report GOV/2011/65, for action by the Board of 
Governors. We look forward to receiving this report and considering, 
along with our fellow P5+1 partners and other members of the Board of 
Governors, appropriate next steps.
    We have full confidence in the IAEA's ability to carry out its role 
in monitoring and verifying Iran's nuclear-related commitments, both 
within the roadmap and under the Joint Comprehensive Plan of Action 
(JCPOA), including the steps Iran must take before reaching 
Implementation Day such as the removal of the calandria at Arak and 
filling it with concrete, removing two-thirds of its centrifuges, and 
reducing its stockpile of enriched uranium by 98 percent.

    Question. Beyond Iran, what do you believe will be some of the key 
challenges facing the IAEA in the future?

    Answer. As President Obama stated during his 2009 speech in Prague, 
more resources and authorities are needed to strengthen international 
inspections. The United States attaches the highest priority to the 
IAEA's ability to fully perform its unique safeguards mission. This 
mission has been challenged by an increasing workload in the context of 
worldwide growth in nuclear power as well as by the proliferation 
challenges posed by potential clandestine nuclear programs.
    The IAEA must rely on the support of Member States for the 
financial resources, qualified personnel, and modern equipment, 
facilities, and analytical capabilities needed to carry out its 
critical work. Should Member State support dwindle while the workload 
continues to increase, the IAEA will not be able to maintain the 
current level of the safeguards regime.
    We must continue to work with others to provide the IAEA with 
sufficient financial resources to address these challenges. With 
respect to human resources, we maintain robust support by providing 
U.S. expertise at no cost to the IAEA. Additionally, U.S. support is 
also directed at efforts to provide the IAEA with access to up-to-date 
facilities, analytical techniques, training, and equipment. Without 
such support, the IAEA would be unable to fulfill its mandate.

                               __________


                              NOMINATIONS

                              ----------                              


                       TUESDAY, NOVEMBER 3, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

The Hon. Deborah R. Malack of Virginia, to be Ambassador to the 
        Republic of Uganda
Lisa J. Peterson, of Virginia, a Career Member of the Senior 
        Foreign Service, Class of Counselor, to be Ambassador 
        to the Kingdom of Swaziland
H. Dean Pittman, of the District of Columbia, to be Ambassador 
        to the Republic of Mozambique
                              ----------                              

    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
presiding.
    Present: Senators Flake, Gardner, Markey, and Coons.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today, the committee will consider the nomination of three 
very experienced Foreign Service officers to be U.S. 
Ambassadors to Uganda, Swaziland, and Mozambique. I was happy 
to meet each of you in my office earlier, and I appreciated 
learning the positions you have and the service that you have 
already provided elsewhere in the world, and specifically on 
the continent of Africa.
    In Uganda, our Ambassador to the re will be tasked to help 
ensure that the country enforces a tenuous peace agreement in 
South Sudan. Another challenge will be to help Uganda avoid 
complacency with regard to HIV/AIDS after the good progress the 
country has made largely due to PEPFAR program.
    Swaziland has had its AGOA benefits rescinded at a time 
when the government is already struggling with revenue 
generation. While various international financial institutions 
have offered loans in exchange for reforms, thus far, Swaziland 
has not been able to deliver on those reforms. So it is a 
difficult situation there.
    Mozambique has recently discovered vast natural gas 
resources. Our Ambassador to the re will have to help that 
country make the most of that discovery, which often, as we 
know, becomes more of a curse than a blessing.
    I thank each of you for your time, for sharing your 
experience, and I appreciate family members who are here and 
also appreciate the sacrifices that they have made so that we 
all can benefit from the good work that you do.
    With that, I will recognize Congressman Markey--Senator 
Markey--we were both in the House before this----
    [Laughter.]
    Senator Flake [continuing]. For any comments that he has.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, and thank you for 
your leadership on the subcommittee and for convening this 
hearing to consider the nominations of these three very 
distinguished public servants to serve as our Ambassadors to 
Uganda, Swaziland, and Mozambique.
    To the nominees, thank you for dedicating yourselves to 
serving our country. We know what you do is hard and that it 
can also be hard on your families, so I want to give a warm 
welcome to the families of the nominees who are here today. I 
know from my own experience that the support of your family is 
critical to your own success, so thank you again to the 
nominees and to their families for being here today.
    We are here to talk about your future posts, and generally 
about Africa. I am sure that you will agree that the continent 
presents much opportunity but also many challenges.
    Mr. Chairman, when we traveled with the President to Africa 
this summer, we saw the possibility to spark Africa's existing 
entrepreneurial spirit to create unprecedented economic 
opportunity and growth. We can and should help spur this growth 
by supporting expanded access to sustainable sources of power, 
innovative telecommunications, and Internet interconnectivity. 
All of these are fundamental requirements for commercial and 
social success in our time.
    At the same time, we also saw that Africa faces tremendous 
challenges. We must work to strengthen democratic institutions 
and legitimate electoral processes; ensure that economic growth 
lifts all boats, not just the elites; and that it happens in a 
way that does not degrade the environment, but safeguards it 
for future generations.
    We also need to support efforts to protect and advance 
human rights, including the prevention of trafficking in 
persons, and the abuse of LGBT people and other minorities.
    So I look very much forward to this hearing today and 
engaging with all of you on these important topics.
    I thank you, Mr. Chairman, for having this hearing, and I 
yield back.
    Senator Flake.Thank you, Senator Markey.
    We will now proceed with the nominees.
    Deborah Malac, a career member in the Senior Foreign 
Service, currently serves as U.S. Ambassador to Liberia. Her 
previous assignments have included postings to Cameroon, 
Senegal, South Africa, and Ethiopia.
    The second nominee is Lisa Peterson, who most recently 
served as the Director of the Office of Multilateral and Global 
Affairs in the Department of State's Bureau of Democracy, Human 
Rights, and Labor, a position she has held since 2012. Prior 
assignments include postings in Cameroon, Nigeria, Kenya, 
Zambia, DRC, CAR, and South Africa.
    Last but not least, H. Dean Pittman is a career member of 
the Foreign Service. He spent time in Mozambique back in the 
early 1990s, a very different time then, and he will hopefully 
be heading back to the country here shortly, this time as U.S. 
Ambassador.
    So with that, Ambassador Malac.

    STATEMENT OF THE HON. DEBORAH R. MALAC, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF UGANDA

    Ambassador Malac. Thank you. Mr. Chairman and members of 
the committee, I am deeply honored to appear before you today 
as the nominee to be the next United States Ambassador to the 
Republic of Uganda. I thank President Obama and Secretary Kerry 
for the confidence and trust they have placed in me by sending 
my name to the Senate for consideration.
    Mr. Chairman, I would like to take this opportunity to 
recognize my husband, Ron Olson, and our three children, 
Nicholas, Gregory, and Katharine, and our daughter-in-law, 
Shana. I am deeply grateful for their unstinting love and 
support. Without it, I would not be here today.
    Mr. Chairman, I have been extraordinarily privileged to 
serve as a member of the Foreign Service for more than 34 
years. As the daughter of an immigrant who arrived in the 
United States in the middle of the last century in pursuit of 
freedom and opportunity, my service is small repayment for all 
that the United States has afforded me and my family.
    The majority of my career has been spent working in and on 
Africa, beginning with my first assignment in Cameroon in 1981. 
That first taste of Africa was followed by assignments in South 
Africa, Senegal, Ethiopia, and, now, Liberia, where I have had 
the great honor to serve as Ambassador since 2012. Interspersed 
among the Africa assignments, I have worked in Washington and 
Southeast Asia on issues of democracy, development, trade, and 
security.
    Mr. Chairman, the United States has enjoyed a close 
bilateral partnership with Uganda for the past quarter century. 
Uganda and the United States have worked together to promote 
the peaceful resolution of a series of regional conflicts.
    Having expelled the Lord's Resistance Army from Ugandan 
territory, the Ugandan military has continued to lead regional 
efforts to counter the LRA in central Africa.
    As the second largest troop contributor to the African 
Union Mission in Somalia, Uganda has made tremendous sacrifices 
in its efforts to degrade and defeat terrorists al-Shabaab, and 
bring peace and stability to the Horn of Africa.
    The United States is supporting Uganda to build capacity in 
law enforcement, crisis response, counterterrorism 
investigations, criminal justice sector reform, border 
security, and countering violent extremism and terrorist 
finance.
    Uganda stands out not only for its contributions to 
regional peace and security, but also for its great strides in 
transitioning from a country beset by internal conflict to one 
that is at peace and growing economically.
    When President Museveni came to power in 1986 after decades 
of violent internal strife in Uganda, he instituted 
macroeconomic policies that contributed to steady economic 
growth.
    We look forward to continuing to work with Uganda to help 
expand economic activity for its citizens and support improved 
governance that will help foster broad-based economic 
development. We are working to help Uganda strengthen its 
multiparty democracy and reinforce respect for human rights.
    Uganda will hold elections in 2016, during which President 
Museveni will seek a fifth term. If confirmed, I will urge the 
President to ensure the political space necessary for a 
spirited and robust campaign in which all parties participate 
freely.
    It is important for the region and Uganda's future that the 
elections are free, fair, transparent, and peaceful.
    We continue to urge the Ugandan Government to respect the 
fundamental human rights of all individuals.
    On the development front, we continue to invest in Uganda 
with a robust set of programs. USAID has provided over $430 
million over the past 6 years in development assistance to help 
Uganda's people, efforts that support vital activities, 
including education and economic growth, as well as 
reintegration and rehabilitation support for those affected by 
past conflicts in Uganda, including many former LRA abductees.
    President Obama's Feed the Future Initiative focuses on 
improving productivity and incomes in the agriculture sector, 
on which 70 percent of Uganda's citizens rely for their 
livelihoods.
    In the health sector, the HIV/AIDS prevalence rate has 
fallen from a high of 13.4 percent in 1992 to around 7 percent, 
where it has stagnated for the past decade. Malaria still 
causes an estimated 70,000 to 100,000 deaths per year, and 
progress in improving maternal and child health is slow.
    Through the Global Health Security Agenda, the President's 
Emergency Plan for AIDS Relief, the President's Malaria 
Initiative, and the Saving Mothers, Giving Life partnership, we 
are working with the Ugandan Government to improve the quality 
and accessibility of health services and to address Uganda's 
most pressing needs.
    Mr. Chairman, if confirmed, I will seek to strengthen our 
partnership with Uganda as a force for regional peace and 
security. I will also work with the government and people of 
Uganda in pursuit of a healthier, more productive, and more 
prosperous society where protection of citizens' political and 
personal freedoms is a priority for all.
    Achieving these objectives will be critical to Uganda's 
future stability and economic growth, as well as its continued 
role as an important and constructive regional leader.
    Finally, Mr. Chairman, or more precisely, first, if 
confirmed, the protection of U.S. citizens and U.S. business 
interests in Uganda will be the foremost concern for my team 
and me.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. If confirmed, I look 
forward to working with you to represent and promote the 
interests of the American people in Uganda. I welcome any 
questions the committee may have. Thank you.
    [The prepared statement of Ambassador Malac follows:]

             Prepared Statement of Ambassador Deborah Malac

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the nominee to be the next United States 
Ambassador to the Republic of Uganda. I thank President Obama and 
Secretary Kerry for the confidence and trust they have placed in me by 
sending my name to the Senate for consideration.
    Mr. Chairman, I would like to take the opportunity to recognize my 
husband, Ron Olson, our three children, Nicholas, Gregory, and 
Katharine, and my daughter-in-law, Shana. I am deeply grateful for 
their unstinting love and support; without it, I would not be seated 
here today.
    Mr. Chairman, I have been extraordinarily privileged to serve as a 
member of the Foreign Service for more than 34 years. As the daughter 
of an immigrant who arrived in the United States in the middle of the 
last century in pursuit of freedom and opportunity, my service is small 
repayment for all that the United States has afforded my family and me. 
The majority of my career has been spent working in and on Africa, 
beginning with my first assignment in Cameroon in 1981. That first 
taste of Africa was followed by assignments in South Africa, Senegal, 
Ethiopia, and now, Liberia, where I have had the great honor to serve 
as Ambassador since 2012. Interspersed among the Africa assignments, I 
have worked in Washington and Southeast Asia on issues of democracy, 
development, trade, and security.
    Mr. Chairman, the United States has enjoyed a close bilateral 
partnership with Uganda for the past quarter century. Uganda and the 
United States have worked together to promote the peaceful resolution 
of a series of regional conflicts. Having expelled the Lord's 
Resistance Army (LRA) from Ugandan territory, the Ugandan military has 
continued to lead regional efforts to counter the LRA in central 
Africa. As the second largest troop contributor to the African Union 
Mission in Somalia, Uganda has made tremendous sacrifices in its 
efforts to degrade and defeat the terrorist al-Shabaab and bring peace 
and stability to the Horn of Africa.
    The United States is supporting Uganda to build capacity in law 
enforcement crisis response, counterterrorism investigations, criminal 
justice sector reform, border security, and countering violent 
extremism and terrorist finance.
    Uganda stands out not only for its contributions to regional peace 
and security, but also for its great strides in transitioning from a 
country beset by internal conflict to one that is at peace and growing 
economically. When President Yoweri Museveni came to power in 1986 
after decades of violent internal strife in Uganda, he instituted 
macroeconomic policies that contributed to steady economic growth. We 
look forward to continuing to work with Uganda to help expand economic 
activity for its citizens and support improved governance that will 
help foster broad-based economic development.
    We are working to help Uganda strengthen its multiparty democracy 
and reinforce respect for human rights. Uganda will hold elections in 
2016, during which President Museveni will seek a fifth term. If 
confirmed, I will urge the President to ensure the political space 
necessary for a spirited and robust campaign in which all parties 
participate freely. It is important for the region and Uganda's future 
that the elections are free, fair, transparent, and peaceful. We 
continue to urge the Ugandan Government to respect the fundamental 
human rights of all individuals.
    On the development front, we continue to invest in Uganda with a 
robust set of programs. USAID has provided over $430 million over the 
past 6 years in development assistance to help Uganda's people, efforts 
that support vital activities including education and economic growth, 
as well as reintegration and rehabilitation support for those affected 
by past conflicts in Uganda, including many former LRA abductees. 
President Obama's Feed the Future Initiative focuses on improving 
productivity and incomes in the agriculture sector, on which 70 percent 
of Uganda's citizens rely for their livelihoods.
    In the health sector, the HIV/AIDS prevalence rate has fallen from 
a high of 13.4 percent in 1992 to around 7 percent, where it has 
stagnated for the past decade. Malaria still causes an estimated 70,000 
to 100,000 deaths per year, and progress in improving maternal and 
child health is slow. Through the Global Health Security Agenda, the 
President's Emergency Plan for AIDS Relief, the President's Malaria 
Initiative, and the Saving Mothers, Giving Life partnership, we are 
working with the Ugandan Government to improve the quality and 
accessibility of health services and to address Uganda's most pressing 
health concerns.
    Mr. Chairman, if confirmed, I will seek to strengthen our 
partnership with Uganda as a force for regional peace and security. I 
will also work with the government and people of Uganda in pursuit of a 
healthier, more productive, and more prosperous society where 
protection of citizens' political and personal freedoms is a priority 
for all. Achieving these objectives will be critical to Uganda's future 
stability and economic growth, as well as its continued role as an 
important and constructive regional leader. Finally, Mr. Chairman, or 
more precisely, first, if confirmed, the protection of U.S. citizens 
and U.S. business interests in Uganda will be the foremost concern for 
my team and for me.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. If confirmed, I look forward to 
working with you to represent and promote the interests of the American 
people in Uganda. I welcome any questions the committee may have.

    Senator Flake. Thank you.
    Ms. Peterson.

        STATEMENT OF LISA J. PETERSON, NOMINATED TO BE 
             AMBASSADOR TO THE KINGDOM OF SWAZILAND

    Ms. Peterson. Thank you, Mr. Chairman. The full text of my 
remarks has been submitted for the record.
    Mr. Chairman and members of the committee, it is a great 
honor for me to appear before you today as President Obama's 
nominee to be Ambassador to the Kingdom of Swaziland.
    I am happy to have with me today my husband, Siza 
Ntshakala, and my son, Thabo. They have made tremendous 
sacrifices for my Foreign Service career. I am grateful for 
their love and support, which have helped bring me to the 
threshold of this potential new, challenging, and exciting 
assignment.
    Mr. Chairman, if confirmed, I look forward to working with 
you and the honorable members of this committee to advance the 
interests and values of the United States and the American 
people in Swaziland.
    The United States maintains one of the few resident 
diplomatic missions in the Kingdom of Swaziland. Our 
relationship with the people of Swaziland is an important 
partnership.
    The new Embassy building that will open next year in 
Mbabane is a powerful symbol of the value the U.S. places on 
that relationship and will be a great platform for outreach to 
the Swazi people.
    If confirmed, I will continue to engage the Swazi 
Government as well. I would like to see the king and his 
advisers enter into an ongoing dialogue with civil society.
    Swazi citizens still have limited ability to engage 
meaningfully in public policy decisions. And basic rights such 
as the freedoms of peaceful assembly, association, and 
expression are restricted. Dialogue with civil society will 
help open the way for citizen engagement in policy decisions, 
which will help ensure the best policy outcomes.
    Swaziland is facing a declining economy. This is partially 
due to a broader regional economic downturn, but also due to 
the loss of African Growth and Opportunity Act, or AGOA, trade 
preferences. Swaziland was suspended from AGOA membership in 
January after the government failed to meet established 
benchmarks to strengthen its human rights record, despite 
several years of engagement by the U.S. Government. These 
benchmarks involve the same basic rights for which Swazi civil 
society advocates.
    Drawing on my experience with the Bureau of Democracy, 
Human Rights, and Labor, I will support those who strive to 
hold the Government accountable and uphold democratic values. I 
will support civil society, labor unions, and media, to create 
space for needed political dialogue amongst all the 
stakeholders of Swaziland.
    The people of Swaziland want what the people of the United 
States want: peace, stability, economic prosperity, and an 
opportunity for their children to build better lives for 
themselves. They also hope that their children will be healthy 
enough to have that opportunity.
    Swaziland's 26 percent HIV prevalence rate is the highest 
in the world, and the Nation is suffering a severe tuberculosis 
crisis. Thanks to the resources available through the 
President's Emergency Plan for AIDS Relief, or PEPFAR, the 
United States has helped save tens of thousands of lives in 
Swaziland.
    Embassy Mbabane has been actively coordinating with the 
Swazi Government and other donors to control the epidemic by 
strengthening health infrastructure, increasing the capacity of 
the Health Ministry and HIV/AIDS Council, and developing a 
whole-of-government approach to the crisis.
    This year, Swaziland was selected for the new DREAMS 
initiative, which aims to enable adolescent girls and young 
women to become Determined, Resilient, Empowered, AIDS-Free, 
Mentored and Safe. These efforts have generated results.
    In 2004, prior to PEPFAR, fewer than 500 people were on 
antiretroviral therapy. Now more than 130,000 people in 
Swaziland receive treatment.
    If confirmed, I would look to build on the Embassy's 
ongoing work to continue engaging national, regional, and local 
community leaders about efforts to create sustainable programs 
for an AIDS-free generation.
    A stable Swaziland is important to U.S. regional strategic 
interests, but long-term stability is not possible where 
citizens are unable to use their voices to hold government 
accountable for its actions.
    If confirmed, I will draw on the strong bilateral 
relationship between the United States and Swaziland to 
continue encouraging the kingdom to improve its record on human 
rights and fundamental freedoms. This will also help Swaziland 
meet the benchmarks for AGOA eligibility, which will benefit 
the Swazi economy.
    I will also ensure that our health programming builds on 
success and innovates for sustainability, saving the lives of 
Swazi citizens and helping preserve family units.
    And I will continue to engage in cross-cutting areas, such 
as civil society's ability to advocate on issues from 
preventing gender-based violence to protection of marginalized 
groups to institutionalizing the rule of law.
    Encouraged by the mutual respect between our two nations 
and energized by the challenges that lie ahead, I would be 
honored, if confirmed, to serve as U.S. Ambassador to 
Swaziland.
    Mr. Chairman and members of the committee, I want to thank 
you for the opportunity to appear before you today. I will be 
happy to answer any questions you have.
    [The prepared statement of Ms. Peterson follows:]

                  Prepared Statement of Lisa Peterson

    Mr. Chairman and members of the committee, it is a great honor for 
me to appear before you today as President Obama's nominee to be 
Ambassador to the Kingdom of Swaziland. I am happy to have with me 
today my husband, Siza Ntshakala, and my son, Thabo. They have made 
tremendous sacrifices for my Foreign Service career. I am grateful for 
their love and support, which have helped bring me to the threshold of 
this potential new, challenging, and exciting assignment.
    Mr. Chairman, if confirmed, I look forward to working with you and 
the honorable members of this committee to advance the interests and 
values of the United States and the American people in Swaziland.
    Service in Swaziland would offer me the opportunity to utilize the 
experience I have developed over years of work throughout Africa. My 
decision to remain in Africa was, in many ways, shaped by my first tour 
in the Central African Republic. There, I had the opportunity to work 
with officials of the sole political party as they grappled with 
demands for change. I also had the chance to work with citizens who 
were coalescing around calls for multiparty democracy and with a trade 
union movement battling to advocate for workers' rights in the face of 
government harassment and restrictions. Since then, I have collaborated 
with human rights advocates, supported grassroots democracy education 
efforts, and advocated for democratic organizations and movements from 
South Africa to South Sudan and from Kenya to Nigeria. HIV/AIDS has 
been a constant focus throughout my assignments, culminating in my 
support for the development of Mission Cameroon's first country 
strategy for the President's Emergency Plan for AIDS Relief (PEPFAR). 
If confirmed, I am particularly looking forward to continuing Mission 
Swaziland's work to combine these two priorities--expanding Swazi 
ownership of the HIV/AIDS response while strengthening the ability of 
Swazi citizens to hold their government accountable for performance 
across all sectors, including but not limited to health.
    The United States maintains one of the few resident diplomatic 
missions in the Kingdom of Swaziland. Our relationship with the people 
of Swaziland is an important partnership. The new Embassy building that 
will open next year in Mbabane is a powerful symbol of the value the 
U.S. places on that relationship and will be a great platform for 
outreach to the Swazi people.
    If confirmed, I will continue to engage the Swazi Government as 
well. I would like to see the king and his advisors enter into an 
ongoing dialogue with civil society. Swazi citizens still have limited 
ability to engage meaningfully in public policy decisions, and basic 
rights such as the freedoms of peaceful assembly, association, and 
expression are restricted. Dialogue with civil society will help open 
the way for citizen engagement in policy decisions, which will help 
ensure the best policy outcomes.
    Swaziland is facing a declining economy. This is partially due to a 
broader regional economic downturn, but also due to the loss of African 
Growth and Opportunity (AGOA) trade preferences. Swaziland was 
suspended from AGOA membership in January, after the government failed 
to meet established benchmarks to strengthen its human rights record, 
despite several years of engagement by the U.S. Government. These 
benchmarks involve the same basic rights for which Swazi civil society 
advocates: freedom of peaceful assembly, association, expression, and 
other essential freedoms. Drawing on my experience with the Bureau of 
Democracy, Human Rights, and Labor, I will support those who strive to 
hold the government accountable and uphold democratic values. I will 
support civil society, labor unions, and media, to create space for 
needed political dialogue amongst all the stakeholders in Swaziland.
    The people of Swaziland want what the people of the United States 
want: peace, stability, economic prosperity, and an opportunity for 
their children to build better lives for themselves. They also hope 
that their children will be healthy enough to have that opportunity.
    Swaziland's 26 percent HIV prevalence rate is the highest in the 
world, and the nation is suffering a severe tuberculosis crisis. Thanks 
to the resources available through PEPFAR, the United States has helped 
save tens of thousands of lives in Swaziland. Embassy Mbabane has been 
actively coordinating with the Swazi Government and other donors to 
control the epidemic by strengthening health infrastructure, increasing 
the capacity of the Ministry of Health and Social Welfare and the 
National Emergency Response Council for HIV/AIDS, and developing a 
whole of government approach to the crisis.
    These efforts have generated results. In 2004, prior to PEPFAR, 
fewer than 500 people were on antiretroviral therapy. Now, more than 
130,000 people in Swaziland receive treatment. With the new guidance 
for starting treatment early in the disease progression, and the 
potential to implement a ``test and start'' program, those numbers 
should increase even further. In recent years, the Swazi Government has 
procured its own medicines and laboratory commodities, although the 
supply chain continues to face challenges and needs ongoing support. If 
confirmed, I would look to build on the Embassy's ongoing work to 
continue engaging national, regional, and local community leaders about 
efforts to create sustainable programs for an AIDS-Free generation.
    The U.S. mission in Swaziland engages with both national leaders 
and at grass roots levels across Swaziland. In addition, Peace Corps 
Volunteers are actively engaged in community health and HIV prevention 
programs. These volunteers are tangible representatives of the interest 
and concern of the United States for the people of Swaziland.
    If confirmed, I am also passionate about working with Swaziland's 
young women and girls to help them realize their full potential, 
because young women who feel empowered are less likely to be at risk 
for HIV. To that end, Swaziland is a partner in the new DREAMS 
initiative, which aims to enable adolescent girls and young women to 
become Determined, Resilient, Empowered, AIDS-Free, Mentored and Safe. 
If confirmed, I will continue efforts to work closely with the 
Government of the Kingdom of Swaziland and civil society to enhance the 
status of women and girls, in order to help address the HIV/AIDS 
epidemic, support poverty alleviation efforts, and uphold universal 
human rights.
    A stable Swaziland is important to U.S. regional strategic 
interests, but, long-term stability is not possible where citizens are 
unable to use their voices to hold government accountable for its 
actions. If confirmed, I will draw on the strong bilateral relationship 
between the United States and Swaziland to continue encouraging the 
Kingdom to improve its record on human rights and fundamental freedoms. 
This will also help Swaziland meet the benchmarks for AGOA eligibility, 
which will benefit the Swazi economy. I will also ensure that our 
health programming builds on success and innovates for sustainability, 
saving the lives of Swazi citizens and helping preserve family units. 
And I will continue to engage in cross-cutting areas, such as civil 
society's ability to advocate on issues from preventing gender-based 
violence to protection of marginalized groups to institutionalizing the 
rule of law. Encouraged by the mutual respect between our two nations 
and energized by the challenges that lie ahead, I would be honored, if 
confirmed, to serve as U.S. Ambassador to Swaziland.
    Mr. Chairman and members of the committee, I want to thank you for 
the opportunity to appear before you today. I will be happy to answer 
any questions you have.

    Senator Flake. Thank you.
    Mr. Pittman.

         STATEMENT OF H. DEAN PITTMAN, NOMINATED TO BE 
            AMBASSADOR TO THE REPUBLIC OF MOZAMBIQUE

    Mr. Pittman. Thank you, Mr. Chairman.
    I want to say, first, my family is sort of scattered from 
Burma to Mississippi today, so it is just me up here, but thank 
you very much.
    And just let me say to Mr. Chairman and members of the 
committee, it is an honor for me to appear before you today as 
President Obama's nominee to be Ambassador to the Republic of 
Mozambique. I am grateful to the President and Secretary Kerry 
for the confidence they have placed in me.
    Mr. Chairman, as you noted, I served in Mozambique 24 years 
ago at a time the country was just emerging from years of 
devastating civil war. Mozambique has come a long way since 
those days.
    Over these last decades, the United States has aimed to 
build a strong, productive partnership with Mozambique and its 
people as we advance our mutual interests in tackling a wide 
range of issues, including expanding investment opportunities; 
combating transnational crime and illegal trafficking; stopping 
the spread of HIV; and building more inclusive, democratic 
institutions that can meet the needs of all Mozambique's 
people. And we have seen significant, though uneven, progress.
    On the economic front, Mozambique had registered impressive 
growth over the past decade. This economic growth will likely 
continue as the country develops its recently discovered 
natural gas fields, an area where opportunities for U.S. 
investment are already being realized.
    Most notably, when the Texas-based company Anadarko 
concludes its negotiations with the Government to develop a 
large natural gas field, a multimillion dollar project, it will 
become one of the largest investors in sub-Saharan Africa.
    With our opening of the Embassy's new Foreign Commercial 
Service Office in 2014, we have deepened U.S. Government 
advocacy support available to U.S. companies and businesses.
    But it is clear these positive developments only tell part 
of the story. Despite such impressive economic growth, the 
majority of Mozambique's 25 million people continue to live 
below the poverty line. Mozambique has an HIV prevalence rate 
of around 11 percent nationwide. Educational opportunities, 
while improving, still are not equally available across the 
country. And illiteracy remains a challenge, particularly for 
women and girls.
    Weak institutions and porous borders continue to make 
Mozambique a target of international trafficking and other 
criminal networks. And perhaps most troubling, recent violent 
skirmishes between the Government and opposition party 
underscore that peace remains fragile.
    Mozambique's progress and ability to be a strong partner 
with the United States depends in large part on continued peace 
and stability; strong democratic institutions; a healthy, 
educated population; an engaged civil society; and economic 
growth that is inclusive and benefits all Mozambicans.
    These are areas where the United States has long worked 
closely with Mozambique, and this is an area where we will 
continue to focus our attention. Let me offer a few examples.
    As the largest bilateral donor to Mozambique, the United 
States provides the majority of our support to improve the 
health of Mozambicans. The President's Emergency Plan for AIDS 
Relief, the President's Malaria Initiative, the Global Health 
Initiative, and the Peace Corps are all working together toward 
this goal in partnership with both the Mozambican Government 
and the Mozambican people.
    Thanks to these efforts, more than 675,000 people living 
with HIV are now on treatment, and 75 percent of them are 
supported by the generosity of the American people.
    If confirmed, I will also encourage the Mozambican 
Government to commit more of its own resources, particularly as 
it is able to do so, to improve the health of its people and 
ensure the sustainability of its health care system.
    In the agricultural sector, where there is significant room 
for expansion, the U.S. Government is helping Mozambicans 
improve overall performance in order to reduce hunger, poverty, 
and malnutrition.
    In light of Mozambique's geographical location on the 
Indian Ocean, we recognize its potential as a regional partner 
and leader. But to fulfill this role, Mozambique must be able 
to secure its long land borders and coastline. There needs to 
be sustained efforts to promote maritime security and curb 
illegal trade flows. So if confirmed, I will look for more 
opportunities to expand efforts in this area.
    We are cooperating with Mozambique to conserve coastal 
wetlands and marine reserves, and to reestablish the country's 
unique wildlife parks and combat wildlife trafficking. The 
Government of Mozambique has already taken important steps 
enacting stronger conservation law and recently courageously 
destroying a stockpile of confiscated ivory and rhino horns.
    If confirmed, I will advocate for continued demonstrations 
of political and national will to take on powerful criminal 
enterprises intent on profiteering at the expense of 
Mozambique's natural heritage and what is, indeed, a global 
treasure.
    Underpinning all of this work, are people-to-people ties. 
More than 1,200 Mozambicans have come to the United States as 
part of a wide variety of exchange programs and returned home 
to contribute to their country the perspectives they gained 
here in our country.
    These exchanges work both ways. We have a robust Peace 
Corps program in Mozambique. As a former Peace Corps Volunteer, 
I know what invaluable experiences our volunteers gain from 
work they are doing in many communities, large and small, 
throughout the entire country.
    So, Mr. Chairman and members of the committee, I want to 
thank you for the privilege of appearing before you today. If 
confirmed, I welcome the challenge of protecting and advancing 
the interests of the United States in Mozambique. It is a duty 
and responsibility I would be honored to accept. Thank you very 
much.
    [The prepared statement of Mr. Pittman follows:]

                   Prepared Statement of Dean Pittman

    Mr. Chairman and members of the committee, it is an honor for me to 
appear before you today as President Obama's nominee to be Ambassador 
to the Republic of Mozambique. I am grateful to the President and 
Secretary Kerry for the confidence they have placed in me. Mr. 
Chairman, I served in Mozambique 24 years ago at a time the country was 
just emerging from years of devastating civil war. Mozambique has come 
a long way since those days. Over these last decades the United States 
has aimed to build a strong, productive partnership with Mozambique and 
its people as we advance our mutual interests in tackling a wide range 
of issues, including expanding investment opportunities, combating 
transnational crime and illegal trafficking, stopping the spread of 
HIV, and building more inclusive, democratic institutions that can meet 
the needs of all Mozambique's people.
    And we have seen significant--though uneven--progress.On the 
economic front Mozambique has registered impressive growth over the 
past decade--upward of 7 percent a year. This economic growth will 
likely continue as the country develops its recently discovered natural 
gas fields; an area where opportunities for U.S. investment are already 
being realized. Most notably, when the Texas-based company--Anadarko--
concludes its negotiations with the government to develop a large 
section of the natural gas fields--a multibillion dollar project--it 
will become one of the largest investors in sub-Saharan Africa. Already 
other U.S. companies are taking advantage of what are expected to be 
increasing investment opportunities, not only in the energy field, but 
also in construction, tourism, and agriculture. With our opening of the 
Embassy's new Foreign Commercial Service Office in 2014, we have 
deepened U.S. Government advocacy support available to U.S. companies 
and investors. As a new Trade Africa partner, the United States will 
work closely with Mozambique to expand economic ties and improve the 
environment for trade and investment.
    But it is clear these positive developments only tell part of the 
story. Despite such impressive economic growth, the majority of 
Mozambique's 25 million people continue to live below the poverty line. 
Mozambique has an HIV prevalence rate of over 11 percent nationwide, a 
huge threat to the country's well-being. Educational opportunities, 
while improving, still are not equally available across the country and 
illiteracy remains a challenge, particularly among women and girls. 
Weak institutions and porous borders continue to make Mozambique a 
target of international trafficking and other criminal networks. And 
perhaps most troubling, recent violent skirmishes between the 
government and opposition party underscore that peace remains fragile.
    Mozambique's progress and ability to be a strong partner with the 
U.S. depends in large part on continued peace and stability, strong 
democratic institutions, a healthy, educated population, an engaged 
civil society and economic growth that is inclusive and benefits all 
Mozambicans. These are areas where the United States has long worked 
closely with Mozambique and its people and where, if confirmed, I will 
continue to focus our attention. Let me offer a few examples of areas 
where we have worked successfully with Mozambique to advance our mutual 
interests.
    As the largest bilateral donor to Mozambique, the United States 
provides the majority of our support to improve the health of 
Mozambicans. The President's Emergency Plan for AIDS Relief, the 
President's Malaria Initiative, the Global Health Initiative, and the 
Peace Corps are all working together toward this goal in partnership 
with both the Mozambican Government and civil society. Thanks to the 
partnership between the Mozambican Government and international donors 
including the United States (through PEPFAR), more than 675,000 people 
living with HIV are now on treatment, and 75 percent of them are 
supported by the generosity of the American people. If confirmed, I 
will continue to advance our ambitious vision of creating an AIDS-free 
generation by working to reduce the transmission of HIV/AIDS, boost the 
percentage of HIV-positive Mozambicans on treatment, and control the 
epidemic in the highest burden districts of Mozambique by the year 
2018. At the same time, I will encourage the Mozambican Government to 
commit more of its own resources--particularly as its ability to do so 
increases--to improving the health of its people and ensuring the 
sustainability of its health care system.
    In the agricultural sector, where there is significant room for 
expansion, the U.S. Government is helping Mozambicans improve overall 
performance in order to reduce hunger, poverty, and malnutrition. Our 
support is also designed to help create opportunities through 
entrepreneurship, access to markets, improved technology, and a healthy 
business climate that will aid in transforming subsistence farming into 
commercial agriculture.
    We worked closely with Mozambique to carry out the recently 
concluded 5-year Millennium Challenge Corporation (MCC) Compact that 
focused on investments in water supply, sanitation, drainage, roads, 
bridges, land tenure, and agriculture to increase productive capacity 
in areas where economic development has lagged.
    In addition over the last couple of decades, the United States has 
been a major contributor to ridding Mozambique of landmines, a deadly 
reminder of the civil war and an obstacle to development and economic 
growth. Earlier this year, Mozambique officially declared itself 
``impact free'' of landmines.
    We also recognize Mozambique's potential as a regional partner and 
leader, particularly in light of its expectation of becoming a world-
class energy exporter. To fulfill this role, Mozambique must be able to 
secure its long land borders and coastline. There needs also to be 
sustained efforts to promote maritime security and curb illegal trade 
flows. If confirmed, I will continue to build upon our partnership with 
the Mozambican authorities to promote regional maritime and border 
security as an integral part of efforts to advance regional stability 
and economic growth.
    We are also cooperating with Mozambique to conserve coastal 
wetlands and marine reserves, and to reestablish the country's unique 
wildlife parks and combat wildlife trafficking, a very serious threat 
to Mozambique's sovereignty, border security, as well as the economic 
welfare of the population. The Government of Mozambique has already 
taken important steps: enacting a stronger conservation law and 
recently courageously destroying a stockpile of confiscated ivory and 
rhino horn. If confirmed, I will advocate for continued demonstrations 
of political and national will to take on powerful criminal enterprises 
intent on profiteering at the expense of Mozambique's natural heritage, 
and indeed a global heritage.
    Underpinning all of this work are our people-to-people ties. Our 
American Cultural Center and American Corners provide spaces for the 
exchange of ideas on topics from the environment to entrepreneurship, 
from capacity building to culture.
    More than 1,200 Mozambicans have come to the United States as part 
of a wide variety of exchange programs and returned home to contribute 
to their communities the perspectives and skills gained here. And, 
these exchanges work both ways. We have a robust Peace Corps program in 
Mozambique, and as a former Peace Corps Volunteer, I know what 
invaluable experiences our volunteers gain from work they are doing in 
many communities large and small throughout the entire country.
    Mr. Chairman and members of the committee, I want to thank you for 
the privilege of appearing before you today. If confirmed, I welcome 
the challenge of protecting and advancing the interests of the United 
States in Mozambique; it is a duty and responsibility I would be 
honored to accept. Thank you and I would welcome any questions you 
might have.

    Senator Flake. Thank you, Mr. Pittman.
    Ms. Malac, with regard to Uganda, there has been, as we 
talked about before, an uptick in HIV/AIDS. What is the 
Government doing to help stem that? I am talking about the 
Ugandan Government. And how can we play a positive role there?
    Ambassador Malac. Thank you, Senator.
    Yes, we are a bit concerned that the decline in HIV/AIDS 
rates has stagnated over the last several years. We continue to 
work through the PEPFAR program with the Government of Uganda, 
with the Ministry of Health, which understands the concerns, 
looking for other opportunities to improve prevention efforts.
    They have been quite successful in terms of preventing 
mother-to-child transmission. But clearly, with numbers 
continuing to show increases in some parts of the population, 
there is more that needs to be done. We believe that it is 
possible to stop that from continuing to go up and push it back 
in the other direction. So PEPFAR is heavily engaged in a 
number of areas in the prevention arena.
    Senator Flake. Thank you. Uganda has played a positive role 
in the region, in terms of contributing troops and helping 
broker peace deals and enforce, hopefully, a cease-fire in 
South Sudan. Do you see it as an important role, your role as 
Ambassador, if you are confirmed, to forward that relationship? 
What can we do to make sure that that kind of positive 
cooperation continues?
    Ambassador Malac. Clearly, the relationship that we have 
had with Uganda over the last several years in the security 
arena is a very important one for our interests and the 
interests of the countries in East Africa and the Horn. If 
confirmed as Ambassador, I will continue, through the many 
different avenues that the U.S. has used to date, to ensure 
that our interests and Uganda's converge as regards the 
security sector.
    We believe that Uganda has potential to continue to play a 
leadership role in the security sector and bringing some help 
to address the conflicts that surround the country. So I am 
quite confident that we will be able to continue that 
relationship.
    The Ugandans have said that they are committed to 
participate in all of the activities. But clearly, we will 
need, going forward, to ensure that that conversation remains 
robust, and that we are able to identify opportunities that 
they are in a position to address.
    Senator Flake. Thank you. And thank you for your 
willingness to take on this assignment after that nice, 
leisurely post you had in Liberia over the last couple years. 
Thanks for the work that you did there as well.
    Ms. Peterson, you mentioned that the HIV/AIDS rate in 
Swaziland is among if not the highest in the world. You also 
mentioned that there are a large number, 130,000, on 
retrovirals. Given the difficulty in terms of revenue for 
Government, how will they be able to continue to provide the 
retrovirals? Is that an issue we ought to be concerned about?
    Ms. Peterson. Thank you very much for that question.
    The Government has taken a very forward-leaning position, 
in terms of taking responsibility for providing the medications 
for treatment in Swaziland. The financial burden on the 
Government is only going to grow as the objective for 
addressing prevention is actually through treatment, and the 
numbers of people who will need to go on treatment will 
increase.
    The Government is in a difficult position, because they 
have the looming economic circumstance in the region at this 
moment in time.
    We are considering options that may help them in the short 
term with ensuring that the supply chain of medication is not 
stopped. But longer term, there will clearly need to be 
conversations with the Government about how they are 
prioritizing their spending, so that they can continue to 
uphold their commitment, which is a point on which they are 
very proud.
    Senator Flake. Thank you.
    With regard to AGOA, is there any possibility that, in the 
short term, they might be able to hit the benchmarks they need 
to have these restrictions lifted?
    Ms. Peterson. So the Government has ``done the needful'' on 
two Labor Relations Act provisions. There is, apparently, work 
that has been developed around crowd control measures, public 
order, the way security forces respond to public 
demonstrations. That is still a work in progress and not 
something that has been really rolled out to the Swazi security 
forces.
    The real sticking points are going to come around revisions 
to the Public Order Act and the Prevention of Terrorism Act. 
The International Labor Organization has been working with the 
Swazi Government to amend the relevant provisions in the 
Terrorism Act. If confirmed, this is something that I would 
also like to try to draw on individuals and organizations that 
I came to know through my work in Democracy, Human Rights and 
Labor to try to find ways that we can help the Government 
address those final two provisions, so that overall space, not 
just for trade unions, but also for civil society writ large, 
will be more open.
    Senator Flake. Thank you.
    Mr. Pittman, you mentioned wildlife trafficking as an issue 
the Government is dealing with there. There has been a huge 
uptick in rhino poaching in the Kruger National Park proximity 
right near the border of Mozambique. What role is yours, if you 
are confirmed, to help the Government respond to that problem?
    Mr. Pittman. Thank you, Senator.
    Yes, you are right. First of all, this is a huge resource 
that the Mozambicans have, and they are aware of it. They have 
these beautiful, unique, natural national parks and reserves. 
They are unique to the world. So preserving these and 
preventing trafficking in ivory and rhino horns is critical.
    The United States has been very much involved, and I have 
to say our Ambassador to the re, Ambassador Griffiths, has been 
working very closely with the Government and with the private 
sector. I think that is key, that we have a partnership where 
we bring in private sector expertise to work with the 
Government to manage their resources and help manage the parks, 
help manage the reserves, but also look at how we can provide 
training and other advice and other tools to the Government to 
prevent the trafficking in wildlife.
    It is a challenge. The borders are porous, and the capacity 
is a challenge. But we are working on a whole series of levels, 
and a lot of our assistance is going directly to support 
efforts in this area.
    I have to commend the Government. They realize this is a 
challenge. They realize how important it is. And they have 
recently destroyed 2.5 tons of ivory and rhino horns that had 
been confiscated.
    So I think we have a good partner with Mozambique in 
working toward a solution here. It is a challenge. It is a 
challenge for the region.
    Senator Flake. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ambassador Malac, last April, Human Rights Watch said that 
the new bill to regulate nongovernmental groups would severely 
curb Ugandans' basic rights and would subject NGOs to such 
extensive governmental control and interference that it could 
negate the very essence of freedom of association and 
expression.
    Alarmingly, one of its clauses would prohibit activity 
``contrary to the dignity of the people of the Uganda.'' Such a 
broad definition leaves the conclusion that they want to just 
be able to act arbitrarily.
    So what is the State Department's view of Uganda's new NGO 
bill that they are looking at? And what would you do, as 
Ambassador, to help protect civil society groups?
    Ambassador Malac. Thank you, Senator.
    Regulation of NGOs is a topic of much interest and 
discussion among many countries in East Africa, and so we are, 
understandably, having seen how it works elsewhere, concerned 
by the proposed legislation in Uganda.
    The good news on this issue, however, is that the Ugandan 
Government has continued to appear open to dialogue and 
discussion, and to entertain suggestions for revisions to the 
language of the legislation that are put forward by civil 
society organizations, nongovernmental organizations, and 
international partners.
    If confirmed, I will continue to lead that kind of an 
effort to have a dialogue and discussion, and try to moderate 
where we can aspects of the legislation, understanding that the 
Government of Uganda does need to have a good understanding of 
what activities are ongoing inside its borders.
    Senator Markey. Thank you.
    The Somali-based extremist group al-Shabaab claimed 
responsibility for the 2010 bombings in the Ugandan capital. 
Reports say that it has successfully recruited members in 
Uganda. Also, al-Shabaab militants based in Kenya have 
threatened Uganda with further attacks in retaliation for its 
involvement in the African Union Mission in Somalia.
    We work closely with Uganda, with assistance focused on 
improving border control and airport security, travel document 
control, forensics, and critical questions on Somali.
    Could you talk a little bit about that and how you see that 
situation unfolding?
    Ambassador Malac. Certainly, Senator. Thank you.
    Uganda has faced a lot of challenges and it, certainly, is 
under threat for the leading role that it has played in AMISOM 
since its inception in 2007. As a result, they have been a 
direct target of terrorist attacks.
    It is clear to us that there is much more work that we all 
need to do to strengthen their ability to insulate themselves, 
to the extent that it is possible with terrorist groups, from 
these kinds of activities.
    We have seen al-Shabaab and what it is capable of doing, 
not just within Somalia, but outside. It is ongoing effort in 
cooperation with the Government of Uganda to work together to 
try to build their capacity to do that in a variety of ways, as 
you have outlined.
    If confirmed, I would continue those programs and that 
cooperation in any way possible.
    Senator Markey. Thank you.
    Ms. Peterson, the 2005 Constitution, notably its Bill of 
Rights, was a key step toward Swazi compliance with global 
constitutional norms. But pro-democracy groups view it as 
falling short in many respects, and discontent continues over 
alleged corruption, nepotism, favoritism, and privilege for 
royals and the political elite; mismanagement of public funds; 
and state resistance to political reform.
    What more can the United States do to help foster a climate 
where political parties can operate and civic freedoms can 
expand?
    Ms. Peterson. Thank you very much for that question.
    I think the fundamental work on ensuring space for civil 
society--and this grows out of the engagement around AGOA--that 
if we can get the space opened for civil society, that will 
open broader opportunities for engagement by an array of 
actors.
    I do think that Swaziland has taken a negative direction 
since 2005. It clearly is something that the current Ambassador 
at post has worked on. If confirmed, I would look to build on 
her engagements, provide as much support and as much convening 
power for civil society as I can.
    On the fiscal transparency side, I think as a starting 
point, we, the U.S. Government, can hold a stronger line on 
asking for greater fiscal transparency from the Government. 
But, again, opening the space for Swazis to be able to speak to 
their own Government and hold their own Government accountable 
will also be key to getting the Government to respond on these 
points.
    Senator Markey. Thank you.
    Mr. Pittman, according to the department's 2015 Trafficking 
in Persons report, Mozambique as a Tier 2 country is a transit 
and to a lesser extent destination country for men, women, and 
children subjected to forced labor and sex trafficking. Please 
describe the Government's approach to halting human trafficking 
abuses. What must it do more effectively to counter such 
crimes? And what can you in the Embassy do to advance that 
goal?
    Mr. Pittman. Thank you, Senator.
    In some ways, this is a bit of a good news story. The 
Government of Mozambique was listed as a Tier 2 Watch country 
just a few years ago. But because of some of the good work and 
efforts they have made, they moved to the Tier 2. Obviously, it 
is still not enough, and we work very closely with the 
Government to sort of see how we can find ways to advance them 
and get them to fulfill the regulations here.
    But they have taken some positive steps, and, certainly, 
ones that are encouraging. They set up reference groups in 
various provinces that are looking at some of these cases and 
investigating them and providing that kind of eyes on the 
ground for the Government. The Government is taking the 
opportunity with other NGOs and groups to provide training and 
information to Government workers so they are aware of what 
they should be looking for, and how they should be approached.
    Broader issues, of course, are the issues that Mozambique 
has with maintaining its long borders that are porous.
    These are all areas where we will continue to work. But the 
bottom line here, I think, is that we have some good progress 
so far on this issue.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. Thank you for 
convening this hearing today.
    First, to Ambassador Malac, I just cannot thank you enough 
for your service in Liberia. In my three visits to Liberia, I 
was struck by the capabilities of the country, the challenges 
it faced. And in the most recent visit, I had the opportunity 
to see your leadership in the midst of the Ebola crisis. It was 
nothing short of spectacular. You were just the sort of Foreign 
Service leader we hope for in this country under extremely 
demanding circumstances--highly motivated, capable, still 
retaining a sense of humor in the midst of one of the most 
difficult environments I have ever seen, and with a loyal and 
dedicated team.
    So I just want to start by, in front of your family, 
thanking you for what I know was a very long and difficult 
period, and for your exceptional leadership in it.
    I mean to take nothing away from our other nominees, but I 
have had the opportunity to see you lead under extremely 
demanding circumstances.
    And you go from Monrovia to Kampala. When I first came into 
Kampala, in 1987, Museveni's troops had just taken control. He 
had just become President, and he is still President today.
    So my first question would simply be, given what we have 
already heard in terms of concerns about the civil society, the 
NGO law, and the really grinding pressure on civil society, and 
given recent decisions about pursuing another term, how do you 
strike an appropriate balance between advocating for democracy 
and open civil society and transparency while retaining a 
positive relationship with a key regional security ally?
    Ambassador Malac. Thank you for those kind words, Senator, 
and for the question. Yes, moving from one difficult situation 
to another.
    Creating democracy, creating multiparty democracy that 
functions in an appropriate manner is a process, as you know. 
It is not something that happens overnight.
    A few elections ago, there was not anything that even 
resembled multiparty democracy in Uganda. Now in the election 
we are headed toward in early next year, there is a greater 
semblance of that process.
    But it is messy, and it is, certainly, not as far and as 
well-entrenched in Uganda as any of us would like to see it. So 
we are continuing to have the discussion; continuing to work as 
the U.S. Government has been doing with developing the capacity 
of political parties to provide legitimate opposition, some 
real opposition, to the current system; creating capacity 
within civil society organizations, nongovernmental 
organizations, to understand the role that they play, the 
important role that they play in making demands on their 
government for appropriate democratic outlets and processes; 
continuing to work with the elections commission to ensure the 
capacity of the system to function, despite some of the 
concerns.
    The issue of term limits is always a tricky one. 
Ultimately, this often resides in constitutions, and 
ultimately, those decisions are for the people to decide. We 
understand often those referendums or decisions may not always 
be the most transparent processes.
    But that said, I think I, if confirmed as Ambassador, will 
continue to have this conversation that has been an ongoing one 
with President Museveni to show that change is good sometimes--
it brings different ideas; it brings different opportunities--
but, most importantly, to encourage him to keep the space open 
so that opposition parties and civil society organizations, 
Ugandans, can advocate for their own rights and civil 
protections.
    Thank you.
    Senator Coons. Let me also ask you, Ambassador, about the 
LGBT community in Uganda and the shrinking space in which they 
have had to operate in the last couple of years, and the real 
challenges we face in trying to respect their security, 
privacy, and liberty while still advocating for them.
    I had a very memorable meeting a number of years ago in 
which I was asked not to be a more vocal advocate because of 
the consequences for those who were known to have met with a 
Senator or anyone else from our Government.
    How do you fight for space when the political environment 
around it is not supportive?
    Ambassador Malac. Thank you.
    That is a very difficult balance to strike, particularly as 
we are pushed on the part of the U.S. Government to ensure, as 
we do advocate all over the world, for the protection of the 
human rights of all individuals to be free from discrimination, 
to be free from the threat of violence. It is an issue and a 
value that we hold very dear, and we must advocate in that 
arena, even in difficult environments like Uganda.
    It is often the case that we are sometimes further out 
ahead of some of the local groups or individuals themselves. So 
continuing the dialogue that we have--we work very closely with 
organizations and individuals in Uganda who are advocating for 
LGBT rights to ensure that we are calibrated appropriately and 
to continue to work with the Government, to dialogue with the 
Government of Uganda, to ensure that the space is open.
    It will be an ongoing process where we believe the 
legislation that was on the books previously is gone. But, of 
course, we will have to continue to watch vigilantly to ensure 
that we do not turn the clock back.
    Senator Coons. Thank you.
    Mr. Chairman, I would like to ask a question of all three, 
being conscious of my colleagues' time.
    Mr. Pittman, you served as a Peace Corps volunteer in Gabon 
many years ago. All three of you have had experience and 
exposure with the Peace Corps in the countries to which you 
will serve or where you previously served.
    I am also interested in the Young African Leaders program. 
We had a terrific meeting with them in Monrovia. The University 
of Delaware is one of 20 institutions that hosts them. I think 
it has a lot of potential and is an area this administration 
has led in.
    If you would please in turn talk about how we build a 
better relationship between the nations to which you will be 
posted, and what role exchange programs, service programs like 
the Peace Corps, like Young African Leaders, play in that 
process? Please, if you would, in order.
    Ambassador Malac. Thank you, Senator.
    Watching what has been happening with Young African Leaders 
participants who have returned to Liberia has been very 
instructive in terms of what the possibilities are, watching 
how they come back with these connections, not just to young 
people in the United States but to the Africans that they have 
met from other countries that they might not have had the 
opportunity to. They themselves are watching the energy, 
creating networks among themselves, talking back and forth and 
coming up with ideas about how they can contribute.
    If confirmed, I look forward to the opportunity in Uganda 
to see what other possibilities we can find among the young 
people. It is a very young population, as many of the African 
countries are. So finding ways to constructively engage the 
young population is absolutely critical for the future of this 
country. I think that YALI, among others, is one tool that we 
can use.
    Ms. Peterson. Thank you, Senator.
    The Peace Corps is a key part of our engagement on our HIV/
AIDS programming in Swaziland. They provide access to rural 
communities and young populations in a way that traditional 
Embassy-based programming would never be able to accomplish. It 
really is a people-to-people connection that you cannot match 
in any way.
    If confirmed, I would definitely continue supporting the 
work of the Peace Corps as they can go about raising awareness 
and encouraging voluntary testing.
    In terms of other initiatives such as the Young African 
Leaders program, because Swaziland is not quite as young of a 
population as Uganda, but it still has its own youth bulge, 
engagement with young people and developing young leaders who 
are going to have that access to mentors that they meet through 
the course of the program, those sorts of resources available 
to them will be key to Swaziland's ability to consider how it 
moves forward and creates opportunities for young people, with 
young people advocating for their own particular needs.
    Senator Coons. Thank you, Ms. Peterson.
    Mr. Pittman.
    Mr. Pittman. Thank you, Senator.
    As you know, I was in the Peace Corps, and I am a huge fan. 
We have over about 180 Peace Corps Volunteers in Mozambique 
now. They are not only a value-add, they are a multiplier in 
the many areas where we are working. That is education; health; 
advancing the interests of young girls, particularly; and 
education, as I said. So that is a great resource for a mission 
to have, and I am pleased that we have a robust Peace Corps 
program there.
    As I noted in my testimony, we have had 1,200 exchange 
persons from Mozambique come to the United States. I think this 
is an excellent program. We will continue to look at how we can 
engage with youth groups through our Embassy outreach to civil 
society.
    And the YALI program is an excellent way to identify some 
of the next generation of young leaders. I believe we 
identified this last go-round about 15 or so Mozambicans.
    So if confirmed, this will be a great area where I hope to 
do a lot of work as well.
    Senator Coons. Thank you.
    Thank you to you and your families. And as you had to 
Mbabane, Maputo, and Kampala, I wish you all the best and look 
forward to staying in touch.
    Senator Flake. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you as well to the nominees who are here today. I 
appreciate your sacrifice, your service, and your families as 
well. So thank you for your public service.
    I, too, just want to follow up on what Senator Coons said 
about Museveni and the comments you had made in your opening 
statement. ``Uganda will hold elections in 2016, during which 
President Museveni will seek a fifth term. If confirmed, I will 
urge the President to ensure the political space necessary for 
a spirited and robust campaign in which all parties participate 
freely.''
    Obviously, with the news on October 15, the arrest of the 
opposition leaders, we are far from a spirited and robust 
campaign, at this point, so perhaps we can go further into what 
the U.S. positions will be.
    But I want to shift away from that. I do not think this has 
been brought up yet. I would just like to get an update perhaps 
on what you see in Uganda and what the United States is doing 
in terms of the LRA and resistance to the LRA.
    Ambassador Malac. Thank you, Senator.
    The counter-LRA activities continue. As you know, only one 
of the ICC indictees, Joseph Kony himself, remains on the 
battlefield. It is a slow process. It is a very remote area.
    But as you all are aware, the operation has been extended 
for another year. We continue to be hopeful that the 
activities, working with the partners in the region, led 
primarily by the Ugandan forces, that they will be successful. 
That continues to be the hope, that we will find and remove 
Joseph Kony from the battlefield in the coming months.
    The commitment on the part of the Ugandan Government 
remains strong to participate in these activities and to help 
free the populations of that part of Africa from the threat of 
LRA activity that had such a negative impact for so long.
    Senator Gardner. Mr. Chairman, thank you.
    Ambassador, thank you.
    Senator Flake. Thank you.
    Any followup questions from my colleagues? I should not ask 
that to Senator Coons. [Laughter.]
    I appreciate the time that you have taken to prepare for 
this hearing. I appreciate, again, the family members who are 
here and the sacrifices that they make.
    We look forward to going forward with this process and 
thank you all. Thank you for your service.
    The hearing record will be open until Thursday, so members 
can submit other questions for the record, as well. We would 
ask witnesses to respond as promptly as possible to these 
questions that might come your way.
    With thanks to the committee, this hearing now stands 
adjourned.
    [Whereupon, at 10:24 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


  Responses of Hon. Deborah Malac, Nominated to be Ambassador to the 
     Republic of Uganda, to Questions from Members of the Committee

ambassador-designate malac's responses to questions from senator corker
    Question. What steps has Uganda taken to address sexual 
exploitation and abuse by peacekeepers in AMISOM?

    Answer. In regard to the accusations in the Human Rights Watch 
report of systematic sexual abuse by AMISOM soldiers of Somali women, 
the Ugandans charged three soldiers for conduct prejudicial to good 
order and discipline under Section 178 of the Ugandan Peoples' Defense 
Force (UPDF) Act and have committed to undertaking courts martial 
against any other soldiers found over the course of the investigation 
to have violated military regulations. We understand that Uganda and 
AMISOM restructured the ``gender office'' for the primary AMISOM base 
in Mogadishu and moved it to a stadium outside the base so that anyone 
can access the office for assistance or to report incidents. The 
Ugandan Chieftaincy of Military Intelligence (CMI) was tasked with the 
investigation into the accusations made in the Human Rights Watch 
report. We continue to follow up with our interlocutors in the CMI on 
their progress in the investigation.
    Separately, the UPDF convicted two soldiers in July and September 
2015, respectively, of sexually abusing two fellow Ugandan soldiers 
while stationed in Somalia as part of the AMISOM contingent.

    Question. In 2013, Ugandan forces deployed a court martial to 
Mogadishu, but it has since been recalled. Why was it recalled?

    Answer. We understand that the Ugandans undertook this action in 
order to avoid paying additional per diem to soldiers undergoing the 
trials. The Ugandans see this as an additional disciplinary measure for 
those soldiers.

    Question. What African Union guidelines and policies on sexual 
exploitation and abuse are AMISOM troops, including Uganda, subject to?

    Answer. Sexual exploitation and abuse (SEA) are expressly 
prohibited by AMISOM, and are also against the regulations of the 
individual and troop contributing countries (TCCs). This zero-tolerance 
policy regarding sexual exploitation and abuse was recently reaffirmed 
at the September 2015 meeting of the AU's Military Operations 
Coordination Committee, which was attended by the leaderships of the 
AU, AMISOM, and troop/police-contributing countries, including Uganda, 
as well as donor partners. AMISOM maintains a policy on prevention and 
response to sexual exploitation and abuse, as well as a board of 
inquiry to investigate breaches in discipline. AMISOM also established 
a disciplinary board, before which there are currently pending cases of 
sexual harassment by AMISOM forces. Nonetheless, an AU investigation 
into existing measures to prevent sexual abuse and exploitation 
revealed that AMISOM should make significant improvements to its 
reporting and accountability mechanisms, and Human Rights Watch has 
noted gaps and weaknesses within the original SEA policy language 
itself. We are committed to following up with our AU and TCC partners 
on how they are improving their systems.

    Question. If confirmed, will you commit to opening a dialogue with 
the Ugandan Government on military professionalism, specifically around 
the issue of sexual exploitation and abuse?

    Answer. Respect for human rights and protection of civilians is a 
core component of all peacekeeping and military training conducted by 
the United States for the Ugandan Peoples' Defense Force (UPDF). We are 
already engaged in a discussion with the Government of Uganda regarding 
the allegations of abuse and misconduct by the UPDF forces serving in 
AMISOM, and continue to provide training to enhance the UPDF's 
professionalism. If confirmed, I will continue this ongoing dialogue 
with the Government of Uganda and the leadership of the UPDF to urge 
greater attention to protection of civilians and respect for human 
rights whenever or wherever UPDF forces are deployed. In addition, I 
will continue to advocate 
for investigations into and accountability for actions related to abuse 
or sexual exploitation.

    Question. What commitments has Uganda made to countering wildlife 
trafficking and what programming and funding has the United States put 
toward counterwildlife trafficking in FY 2014 and FY 2015?

    Answer. Uganda's location makes it a natural transit route for 
wildlife products, especially ivory, that originate in neighboring 
countries. The problem is underscored by weak antitrafficking laws and 
inadequate resources and training of wildlife officials. Because the 
penalties for trafficking are not strong enough to act as deterrents, 
the Ministry of Tourism, Wildlife and Antiquities is working to 
strengthen the current wildlife law. We continue to raise this issue 
with the government to ensure government-wide leadership in enacting 
the amendments and greater government investment of resources in the 
law enforcement and intelligence aspects of combating wildlife 
trafficking.
    Additionally, many of the administration's global and regional 
activities to combat wildlife trafficking, including training programs, 
strengthening regional cooperation, and reducing demand, can lead to 
benefits in Uganda. At this time, USAID/Uganda is focused on supporting 
several comprehensive analyses of wildlife crime and trafficking that 
look at Uganda, specifically, as well as its link to broader East 
African regional networks. These assessments will inform the design of 
future programs. USAID/Uganda plans to program $500,000 to combat 
wildlife trafficking in FY 2015.

                               __________
                ambassador-designate malac's responses 
                    to questions from senator cardin
    Question. According to figures obtained by the Congressional 
Research Service, Uganda will receive over $90 million in security 
assistance in FY15 and a mere $3 million for Democracy and Governance 
activities, most of which will be used to assist with activities 
associated with the February 2016 elections.

  <diamond> Is this an appropriate balance of funding in your 
        estimation? What is the United States Government currently 
        doing to support democracy and good governance/anticorruption 
        in Uganda, and how much are we providing to fund those 
        activities? Are these activities adequate to the challenges in 
        the aforementioned areas? If confirmed as Ambassador, what will 
        be your priorities for the duration of your tenure in the areas 
        of democracy and governance and anticorruption? What role will 
        you play in supporting efforts to see that next year's 
        Presidential elections are free and fair?

    Answer. Funding for Democracy and Governance (DG) programs is 
constrained globally, and we strive to make the broadest possible 
effect with whatever level of funding is available. Embassy Kampala is 
proactive in identifying DG funding opportunities and has dedicated a 
total of $3 million in FY 2015 and FY 2016 resources toward Governing 
Justly and Democratically activities. U.S. foreign assistance supports 
human rights and invests in organizations and individuals that defend 
human rights in Uganda; creates more effective links between officials 
and their constituents; improves local government capacity to deliver 
services; promotes greater judicial independence, media 
professionalism, and civil society participation for more accountable 
governance; and increases transparency and respect for democratic 
processes and the rule of law. In addition, through our military 
assistance, the United States prioritizes courses on human rights as 
part of its basic curriculum for all U.S.-provided training for Ugandan 
soldiers. Our assistance is helping to build the Uganda People's 
Defense Force (UPDF) into a more professional force that can continue 
to help promote stability throughout the region.
    If confirmed, I will continue to urge the President and Government 
of Uganda to open up political space for political parties and civil 
society to operate and to campaign freely. I will use all available 
resources and tools to strengthen existing programs to build capacity 
among civil society organizations, political parties, and the media. On 
anticorruption, I will continue existing programs to strengthen 
institutional capacity to combat corruption, and look for opportunities 
to broaden our partnerships in Uganda to address this massive 
challenge. I will continue to raise with Ugandan officials and 
nongovernmental partners the need to reduce corruption at all levels in 
order to ensure Uganda's long-term development and stability. If 
confirmed, I will be in a better positon to assess whether the 
resources for these programs are adequate, and will do so when I am in 
the country.

    Question. The State Department Inspector General issued a report of 
Inspection of Embassy Kampala in 2014 with 27 recommendations. Among 
the findings was that post-specific procedures for Leahy vetting of 
Ugandan military and law enforcement personnel had not been codified.

  <diamond> What is the status of the codification of procedures for 
        Leahy vetting at the Embassy?

    Answer. Embassy Kampala was encouraged in an ``informal'' 
recommendation to develop post-specific procedures for Leahy vetting as 
a best practice. There was no finding by the OIG that the Embassy was 
doing Leahy vetting incorrectly or insufficiently. Nonetheless, Embassy 
Kampala has codified its existing robust procedures for conducting 
Leahy vetting for all individuals and units requiring vetting by 
developing a written, post-specific standard operating procedure for 
Leahy vetting.

    Question. In July, the East African Community has asked Ugandan 
President Yoweri Museveni to lead mediation talks on Burundi. Reports 
continue of politically motivated killings in the Burundian capital, 
Bujumbura.

  <diamond> If confirmed, what role will you play in supporting and 
        encouraging Uganda's continued engagement in efforts to bring 
        an end to the crisis in Burundi?

    Answer. If confirmed, I will continue to stress the importance of 
President Museveni's mediation efforts on behalf of the EAC to convene 
urgently a comprehensive Burundian political dialogue aimed at reaching 
consensus on a path to end the violence and restoring the Arusha 
Agreement as the foundation for peace, stability, and economic 
development in Burundi.

                               __________

 Responses of Lisa Peterson, Nominated to be Ambassador to the Kingdom 
        of Swaziland, to Questions from Members of the Committee

               ambassador-designate peterson's responses 
                    to questions from senator cardin
    Question. The Trafficking in Persons Report 2015 recommends that 
the Government of Swaziland ``institutionalize training of officials, 
particularly police, prosecutors, and judges, on the 2010 
antitrafficking act and case investigation techniques.''

  <diamond> Does the Government of Swaziland have the capacity to 
        successfully undertake such actions? If not, what role should 
        the United States play in assisting with such training?

    Answer. Swaziland could do more to combat this crime. The Swazi 
Government has limited capacity to improve training on antitrafficking 
techniques, and the Department is already supporting multiple 
initiatives to increase official capacity and understanding among Swazi 
officials in addressing trafficking crimes. For example, we will look 
to use International Law Enforcement Academy (ILEA) training 
opportunities to improve overall policing techniques, which can be 
applicable to trafficking prevention and investigation methods.
    The State Department's Office to Monitor and Combat Trafficking in 
Persons has awarded a grant for the ``Establishment of Data Collection 
Systems in SADC (South African Development Community) Member States.'' 
Swaziland will be one of the beneficiaries of this project, which will 
include setting up national and regional data hubs, as well as 
conducting training courses for users of the system.
    Furthermore, if confirmed, I will encourage the Swazi Government to 
enact amendments to its 2010 antitrafficking law to allow permanent 
residency of foreign victims and increase its efforts at prosecution, 
improving the rights of victims of trafficking.
    Although not specifically tied to antitrafficking efforts, the U.S. 
Government funded a pilot program for child-friendly courts for victims 
of sexual assault. Children feel more comfortable testifying with the 
assistance of social workers in such courts, and as a result, both 
reporting rates of sex crimes against children and prosecution rates 
have gone up. Thus, officials are working to improve such systems in 
country, and with continued assistance and support, we hope to see 
continued progress in the judicial sector.

    Question. According to the State Department's 2015 Fiscal 
Transparency Report, Swaziland has made no significant progress in 
meeting minimum fiscal transparency standards.

  <diamond> How pervasive is official corruption and what effect is it 
        having on the economy? What actions would the government have 
        to undertake to spur economic growth, and improve fiscal 
        management? If confirmed as Ambassador, what will you do to 
        encourage such actions?

    Answer. While a lack of fiscal transparency can be an enabling 
factor for corruption, the Fiscal Transparency report does not assess 
corruption. Rather, it tracks practices regarding reporting of budget 
information to the public such as whether budgets are publicly 
available, reliable, and substantially complete as well as transparency 
in licensing and contracting for natural resource extraction. Our 
concerns in the review relate to government reporting on issues related 
to processes for awarding contracts and licenses for natural resource 
extraction as well as the degree of oversight on expenditures to 
support the royal family, military, police, and correctional services.
    In terms of corruption, Swaziland's scores in perception of 
corruption indices are quite favorable. However, there are concerns 
that Swaziland's sovereign wealth fund is able to enter business deals, 
which are not transparent or open for public review. This issue is 
pervasive and has resulted in an investment climate that is less 
conducive to U.S. and other foreign investment, notwithstanding the 
country's official policy of encouraging such investment.
    A return to AGOA eligibility could spur economic growth through 
trade, but businesses looking to invest or reinvest in Swaziland will 
be interested in seeing a more transparent business environment. 
Meeting these benchmarks would provide space to organizations, such as 
civil society and the media, to hold leaders accountable and shine a 
light on corruption. Additionally, Swaziland should implement the 
regulatory reforms identified in the country's Investor Roadmap (which 
dates to 2005 and was relaunched in 2012), most of which remain 
unaddressed. Swaziland should enhance ways for private sector entities 
of all sizes to get access to financing, and should look for ways to 
keep the country's deficit under control while protecting spending to 
help the poorest of the poor in Swaziland.
    If confirmed, I would encourage the Government of Swaziland to meet 
the AGOA benchmarks--including basic rights such as the freedoms of 
peaceful assembly, association, and expression. Meeting these 
benchmarks would provide space to organizations, such as civil society 
and the media, to hold leaders accountable, shine a light on 
corruption, and provide opportunities to improve the country's trade 
and investment climate. I would also engage the government in 
discussions around Swaziland's need for economic growth and the ways in 
which greater transparency in the investment climate can contribute to 
more interest from foreign investors. The Department of State recently 
funded an Internal Audit Department Capacity Building Project to 
empower the government's auditors and bring greater oversight to the 
government's finances. While International Quality Assessment Scores 
have improved, I would urge the Swazi Government to pass the Public 
Finance Management bill and to establish an independent Internal Audit 
Committee. These steps are crucial to both meeting international 
standards and ensuring sustainability of the progress made through this 
project.

                               __________

 Responses of Dean Pittman, Nominated to be Ambassador to the Republic 
       of Mozambique, to Questions from Members of the Committee

               ambassador-designate pittman's responses 
                    to questions from senator corker
    Question. Violence has flared recently between government and 
RENAMO forces. What role do you believe the U.S. Ambassador to 
Mozambique should play, if any, in this situation? What specific steps 
would you advocate the U.S. Government take to ameliorate the 
instability?

    Answer. We are concerned about reports of confrontations between 
elements of Renamo and government forces, including incidents involving 
the opposition leader. However, Mozambicans have demonstrated that they 
can resolve differences through dialogue. As the largest donor to 
Mozambique and with growing U.S. investment there, the United States 
has an important role to play in encouraging peace and stability. As 
Ambassador, I would continue to build on Ambassador Griffiths' efforts 
work with all sides to support the peaceful resolution of outstanding 
differences. However, understanding that the situation between elements 
of Renamo and government forces remains very fluid, the Department 
would be happy to provide a briefing as more information becomes 
available.

                               __________
               ambassador-designate pittman's responses 
                    to questions from senator cardin
    Question. Agence France Presse reported on November 3 that fighting 
between government forces and opposition party Renamo resulted in 
fatalities, though the number of deaths remains unclear. This is the 
latest in a series of deadly clashes between the two parties.

  <diamond> What is your assessment of whether these clashes could 
        evolve into a more generalized conflict?
  <diamond> What are the main points of contention between the 
        government and Renamo, and what role, if any, will you have in 
        supporting a rapprochement between the ruling party and Renamo 
        if confirmed as Ambassador?

    Answer. Currently, the skirmishes are entirely localized to rural 
areas in Mozambique's central provinces. Although worrisome, all 
indications from leadership on both sides are that there is no desire 
for a return to civil war. The Embassy has been monitoring these events 
closely. At this time, events are still very fluid.
    The main points of contention between the government and Renamo 
were outlined in the 2014 cessation of hostilities agreement. They 
include the separation of party activities from state functions and the 
disarmament and reintegration of residual Renamo forces into the police 
and military. Additionally, Renamo has a bill before Parliament seeking 
a constitutional change to the mechanism by which provincial governors 
are established.
    While these periodic skirmishes are concerning, Mozambicans have 
demonstrated in the past that they can resolve differences through 
dialogue. If confirmed as Ambassador, I will actively pursue a 
peaceful, transparent, and constitutional resolution to the political 
impasse. I will encourage all parties to use negotiation rather than 
violence to achieve their goals. I will do everything in my power to 
promote rapprochement between ruling party Frelimo and Renamo.

    Question. Mozambique ranks near the bottom of Transparency 
International's corruption index, and according to the State 
Department's 2015 Fiscal Transparency Report, Mozambique has not made 
significant progress in meeting minimum requirements of fiscal 
transparency.

  <diamond> What programs do we currently have in place to help 
        Mozambicans combat corruption? What tools will you have if 
        confirmed as Ambassador to use against corruption government 
        officials, and under what circumstances will you use them? If 
        confirmed, what actions do you plan to take during your tenure 
        as Ambassador to help Mozambicans to combat corruption?

    Answer. Promoting transparency, combatting corruption, and 
strengthening national institutions and civil society are important 
aspects of our work in Mozambique. We currently support the Mozambican 
Prosecutor General and Anti-Corruption Offices through training and 
mentoring for prosecutors and anticorruption officials to increase 
their capacity to prevent, investigate and prosecute corruption and to 
strengthen internal administrative capacity, with a specific focus on 
procurement and financial management. These programs not only increase 
the capacity of the government to apply the law and prosecute 
corruption cases, but they also reinforce efforts to improve overall 
public financial management and accountability within important state 
institutions. In addition, our work with the media seeks to increase 
the capacity of journalists to provide citizens with accurate and 
independent information. In the last fiscal year, the program mentored 
13 leading journalists from major media outlets on investigative 
journalism and trained 33 emerging journalists to equip them to enter 
the market. The program also assisted select media outlets in improving 
their business management and revenues from advertising, thus 
contributing to their long-term sustainability and making them less 
prone to depending on a single advertiser and vulnerable to undue 
influence. A strong Fourth Estate helps hold government accountable to 
the citizens, and strong prosecutors help hold people, businesses, 
organizations and other government agencies accountable to the law.
    If confirmed, I will regularly include anticorruption themes in our 
embassy public outreach efforts and continue our engagement with civil 
society. I will include fiscal transparency and respect for 
international norms as a regular theme in discussions with senior 
government officials. Improving public financial management--of which 
fiscal transparency is a key element--will be a recurring theme in my 
work, particularly in the context of projected falling commodity prices 
and state revenues. I will support and, where possible, expand embassy 
efforts to train organizations that hold governments accountable and 
serve as watchdogs against corruption, such as civil society 
organizations and the media.
    I will also continue to work with other donors on such key 
initiatives as the promotion of full Mozambican membership in and 
adherence to the Extractive Industries Transparency Initiative (EITI), 
which offers a global standard to promote transparency in the 
extractive sector's revenue. Additionally, I will continue to encourage 
the government to pass legislation enabling a public comment period on 
draft legislation which would increase transparency in the discussion 
and passage of national laws. More work will also be necessary to see 
that Mozambique's supreme audit institution conducts audits of the 
government's annual budget and makes audit reports public.
    I note that as a sign of progress in transparency, the government 
passed the Freedom of Information law last year, which should allow 
greater public scrutiny of government decisions and better oversight of 
how public funds are used. If confirmed, I would actively look for ways 
to help Mozambique as it implements this important law.

    Question. Exports of liquefied natural gas could begin as early as 
2018. Has the government put in place strong enough regulations and 
oversight mechanisms to ensure transparency and accountability in the 
sector? What role will you play, if confirmed, to help Mozambicans 
ensure that the population will benefit from resources from the sector?

    Answer. The discovery of significant energy resources has the 
potential to push sustainable development in Mozambique forward in 
favor of expansive growth that provides employment and opportunities to 
Mozambican citizens. To realize this potential, the Mozambican 
Government faces a number of critical legislative, regulatory, fiscal, 
and social decisions that will influence the development of its natural 
resources.
    If confirmed, I will advocate fiscal responsibility and 
transparency in the energy producing sector, including through the IMF 
representative in Maputo. The representative is actively working with 
the Government of Mozambique on transparency and the best use of 
resources. I will continue to support our programming on media 
strengthening that has educated scores of journalists on the importance 
of independent reporting on the extractive industry sector of their 
country. If confirmed, I will also continue the Embassy's regular 
meetings with NGOs advocating for transparency and proper use of funds.
    Mozambique has made significant progress through its official 
acceptance as a Compliant Country of the Extractive Industries 
Transparency Initiative (EITI), and it has the opportunity to continue 
to strengthen its transparency and responsibility, given that the 
established contracts with the companies that work in extractive 
industries are open to the public. It will be important for Mozambique 
to use its resources for the benefit of its people.

    Question. Mozambique has been classified as a Tier 2 country since 
2011. The Trafficking in Persons Report 2015 states ``the government 
did not finalize its national action place or the implementing 
regulations for the 2008 antitrafficking law,'' that ``the government's 
funding for and provision of protective services remained inadequate,'' 
and that ``the Ministry of Justice's draft 2013 action plan to guide 
the efforts for witness protection and outline implementation of the 
2012 witness protection law . . . remained unfinished.''

  <diamond> What steps will you take, if confirmed, to encourage the 
        government to developing regulations to implement the 2008 
        antitrafficking law, and complete the action plan related to 
        witness protection? Does the government have the resources for 
        protective services? If not, what assistance could be provided 
        to help with such services?

    Answer. Mozambique was upgraded from the Tier 2 Watch List in 2011 
to Tier 2 after significant progress in combating trafficking in 
persons. I understand that the Government of Mozambique is making 
efforts to comply with the minimum standards for the elimination of 
trafficking in persons. If confirmed, I will encourage the government 
to continue those efforts. The government established coordinating 
bodies known as ``reference groups'' in three additional provinces and 
reported its investigation in 2014 of 27 trafficking cases. The 
government prosecuted 44 suspected traffickers and convicted 32, a 
continued increase from previous years. In 2014, government officials, 
in partnership with Save the Children, conducted an awareness campaign 
for 150 members of a transportation association and hosted seven 
antitrafficking lectures for 600 government and civil sector personnel. 
U.S. assistance also helped journalists report on the issue.
    Further, if confirmed, I will encourage the government to complete 
its national action plan, develop regulations to ensure full 
implementation of the protection provisions under the 2008 
antitrafficking law, and, most importantly, encourage the government to 
expand the availability or protection services via allocation of 
increased funding to the Ministry of Gender and to NGOs. These 
recommendations complement programming the Department already had in 
place to support increased provision of adequate protection services, 
through a grant to IOM. In addition, I will advocate that Mozambican 
officials participate in training and other programs that combat these 
illegal activities. An example of such training is the International 
Visitor Leadership Program (IVLP) the State Department sponsored for a 
Deputy Prosecutor General and a civil society human rights leader to 
visit the United States this month. They were in Washington, DC, this 
week and will go on to Nevada and California to witness firsthand and 
exchange viewpoints on how our federal, local, and state governments 
work together to combat trafficking in persons.

                               __________


                              NOMINATIONS

                              ----------                              


                       TUESDAY, DECEMBER 1, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Catherine Ebert-Gray, of Virginia, to be Ambassador to the 
        Independent State of Papua New Guinea, and to serve 
        concurrently and without additional compensation as 
        Ambassador to the Solomon Islands and Ambassador to the 
        Republic of Vanuatu
Amos J. Hochstein, of the District of Columbia, to be an 
        Assistant Secretary of State (Energy Resources)
Hon. Scot Alan Marciel, of California, to be Ambassador to the 
        Union of Burma
John D. Feeley, of the District of Columbia, to be Ambassador 
        to the Republic of Panama
Linda Swartz Taglialatela, of New York, to be Ambassador to 
        Barbados, and as Ambassador to the Federation of St. 
        Kitts and Nevis, Saint Lucia, Antigua and Barbuda, the 
        Commonwealth of Dominica, Grenada, and Saint Vincent 
        and the Grenadines
Todd C. Chapman, of Texas, to be Ambassador to the Republic of 
        Ecuador
Jean Elizabeth Manes, of Florida, to be Ambassador to the 
        Republic of El Salvador
                              ----------                              

    The committee met, pursuant to notice, at 2:32 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Gardner, Barrasso, Cardin, and 
Menendez.
    Also Present: Senator Warner.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. If my friends will quit talking about Senator 
Warner, we will start.
    The meeting will come to order.
    Today's committee will consider seven nominations.
    We have our esteemed colleague, Senator Warner, with us to 
introduce the first nominee to be Assistant Secretary of State 
for Energy Resources, Mr. Amos Hochstein.
    Is it ``stine'' or ``stein''?
    Mr. Hochstein. Any way you like it.
    The Chairman. No. [Laughter.]
    Which way do you like it?
    Mr. Hochstein. Hochstein.
    The Chairman. Hochstein. We look forward to your 
introduction.
    And with that, I know Senator Warner is very busy, so we 
might go ahead and let that occur, and then we will move on to 
the other nominees.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, thank you, Mr. Chairman. It is great 
to see you and my dear friends, Senator Cardin and Senator 
Menendez. I know the comments have been made at the dais that 
hopefully my comments will not be held against Amos.
    I know we have all great nominees, but I am here to 
introduce my friend and present to the committee Amos 
Hochstein. To show how strongly I believe in Amos, Amos is not 
even a Virginia resident. He lives in the District, but I am 
still here to support his nomination as Assistant Secretary of 
State for Energy Resources.
    I have known Amos since well over a decade. He advised me 
when I was governor. He advised me as I was gearing up on 
national security issues. He served ably over the last few 
years as special envoy. This is a position, Assistant 
Secretary, at this moment in time with energy issues, national 
security issues being paramount, that needs to be confirmed and 
needs to be confirmed quickly.
    As a matter of fact, Senator Murkowski and I recently 
chaired an Atlantic Council Task Force on Energy Center for 
United States Energy and National Security, and one of our 
recommendations was that this position be filled, and I cannot 
think of anyone that brings more qualifications, more 
recognition of both national security threats, particularly as 
they relate to energy and energy opportunities, than my good 
friend Amos Hochstein.
    So, I am proud to represent him, and again I ask my 
colleagues, particularly Senators Cardin and Menendez, not to 
hold any of my comments against him in your consideration.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thanks for being here. Thanks for 
your service.
    I will introduce the other nominees who do not have the 
handicap of Senator Warner introducing them. [Laughter.]
    But thank you so much.
    Next on our panel we have the Honorable Scot Marciel, a 
career member of the Senior Foreign Service, Class of Career 
Minister, to be our Ambassador to the Union of Burma. He 
currently serves as Principal Deputy Assistant Secretary of 
State for East Asian and Pacific Affairs, a position he has 
held since 2013. Previously, Mr. Marciel served as U.S. 
Ambassador to the Republic of Indonesia. We thank you for being 
here.
    Catherine Ebert-Gray, a career member of the Senior Foreign 
Service, Class of Minister Counselor, is our nominee to be 
Ambassador to Papua New Guinea, the Solomon Islands, the 
Republic of Vanuatu, a place I have not been. She currently 
serves as Deputy Assistant Secretary to the Bureau of 
Administration's Office of Logistics Management, a position she 
has held since 2011. Previously, Ms. Ebert-Gray served as the 
Director of the Department of Overseas Employment and as 
Management Counselor at U.S. Embassies in the Philippines and 
Morocco.
    Thank you all for being here.
    Now we will turn to the nominees. We would remind you that 
your full statement will be included in the record, without 
objection. If you all could keep it to about 5 minutes, we 
would appreciate it, and then you will have plenty of 
questions. We thank you all for your service and for being here 
and look forward to your comments.
    If you will just begin in order, going across from Amos.

 STATEMENT OF AMOS J. HOCHSTEIN, NOMINATED TO BE AN ASSISTANT 
            SECRETARY OF STATE FOR ENERGY RESOURCES

    Mr. Hochstein. Mr. Chairman, Ranking Member Cardin, I am 
honored to be here as the President's nominee to be Assistant 
Secretary of State for the Bureau of Energy Resources, or ENR. 
I want to begin by thanking President Obama and Secretary Kerry 
for their confidence and, with your support, for the 
opportunity to continue to serve our country.
    I served as Deputy Assistant Secretary from ENR's inception 
until August of 2014, when I assumed the role of Special Envoy 
and Coordinator for International Energy Affairs. In my tenure 
leading the Bureau, ENR's efforts have served as a force 
multiplier, strengthening U.S. leadership in global energy 
security.
    It is a profound honor to be considered to serve as the 
Bureau's first Assistant Secretary. I started my career as a 
professional staff member in the House Foreign Affairs 
Committee, so I know the value of close consultation and 
partnership with Congress. I am humbled to appear before 
Congress, back where I started, seeking your confidence to 
serve the American people in this capacity.
    Most importantly, I am joined today by my wife, Rae Ringel, 
and my four children, as well as my parents and mother-in-law. 
My parents and their families found a home in this country 
after fleeing the Nazi advance in Europe. My great aunt Tony 
Sender, for whom my eldest daughter is named, was an elected 
member of Parliament through most of the Weimar Republic. She, 
too, was forced to flee to the United States, supporting the 
U.S. intelligence effort and ultimately named by Eleanor 
Roosevelt to represent the United States at the United Nations.
    My family history has led me from a young age to appreciate 
what the United States has done for me, strengthening my 
resolve to give something back to my country and contribute 
what I can to ensure our leadership in the world endures. 
Today, as energy has become the foundation for economic growth, 
political stability and national security in every part of the 
world, I am grateful to have the opportunity to contribute in 
this area.
    We are living through truly revolutionary times in energy, 
from oil to gas to renewable energy. Due to advances in 
technology and private investment, U.S. natural gas production 
has hit record highs. After years of decline, U.S. oil 
production also rose dramatically, and at the very same time 
new investment in renewable energy over the past two years is 
on track to exceed $80 billion.
    But let us be clear. No matter how much energy we produce 
at home, the reality is we live in a global and interlinked 
economy, and energy is a global commodity. Supply disruptions 
anywhere are a threat everywhere, including here at home.
    Mr. Chairman, if you will allow me to review a small but 
representative sample of the critical work ENR has been engaged 
in and priorities I will focus on should I be confirmed.
    First, Iran. Within weeks of the Bureau's formation in 
2011, Congress passed its first broad sanctions affecting 
Iran's oil exports. ENR was tasked with developing the strategy 
to strictly implement these sanctions, not an easy task. Our 
efforts shrank Iran's customers from 20 to 6, and reduced 
exports from 2.5 million barrels per day to just 1 million. We 
achieved this without disrupting global oil supplies or price. 
This unprecedented effort cut Iranian revenues by over $150 
billion and played a key role in forcing them to the 
negotiating table.
    Ukraine and Europe continue to be vulnerable to Russia as 
their dominant and, in some cases, only supplier. We saw this 
in 2005 and 2009 when Gazprom cut off gas supplies to Ukraine 
and parts of Europe and Turkey. Russia continues to use energy 
to gain and maintain political leverage over Ukraine, as well 
as East and Central Europe, recreating Cold War lines between 
East and West. This includes the so-called Nord Stream II 
project.
    ENR's active engagement in the region, in close 
collaboration with the European Commission, has proven vital to 
counter Russia's dominance. Just this weekend, we grew 
concerned that gas could be used as a weapon against Turkey. 
While we hope this will not happen, it proves once again the 
urgent need to diversify resources and routes throughout the 
region.
    Mr. Chairman, this can be achieved, but only with U.S. and 
EU leadership. From the beginning, the United States targeted 
DAESH's oil operations by damaging or destroying oil refineries 
and oil collection points. In a region with a long history of 
illicit oil trade, Daesh was able to adapt quickly, but so have 
we. U.S. strikes are now targeting specific and strategic 
critical energy infrastructure in Daesh territory. Beyond 
revenue, Daesh uses control of energy resources as a symbol of 
their authority and legitimacy, which is why ENR remains in 
lockstep with the rest of the U.S. national security team to 
degrade and defeat DAESH.
    As we work to prevent the use of energy as a political tool 
or weapon, we are also advancing an alternate vision where 
cooperation in the energy sector can foster collaboration and 
prosperity. The potential is real. From Azerbaijan, the Caspian 
and Iraq, through Turkey to Europe, from Israel to Egypt, 
Cyprus and Lebanon to Turkey and Europe, energy will not lead 
the politics but can serve as an incentive for cooperation and 
collaboration.
    Mr. Chairman, as you know, oil and gas markets are 
volatile. This produces both pain and gain, depending on where 
you stand on the producer and consumer scale. If confirmed, I 
will continue to make sure we are attentive to the political 
instability consequences of the ``lower for longer'' price 
scenario on countries that rely on hydrocarbon revenues for 
significant shares of their budgets.
    In conclusion, Mr. Chairman, I fervently believe in the 
critical role energy plays in our national security and that of 
our friends and allies. I look forward to your questions, and 
thank you for having me today.
    [The prepared statement of Mr. Hochstein follows:]

                 Prepared Statement of Amos J Hochstein

    Mr. Chairman, Ranking Member Cardin, members of the committee, I am 
honored to be here before you as the President's nominee to be 
Assistant Secretary of State for the Bureau of Energy Resources or 
``ENR.'' I want to begin by thanking President Obama and Secretary 
Kerry for their confidence and, with your support, for the opportunity 
to continue to serve our country.
    Now, more than ever, we can see the vital links between energy 
security and national security; as such, the importance of our energy 
diplomacy is only growing. Supplies of energy represent a lifeline for 
ISIS that must be cut, a cudgel for Russia that must be countered, a 
vulnerability for our allies in Europe addressed, concerns rising in 
the South China Sea, as well as opportunities in Central America, the 
Caribbean, and the Eastern Mediterranean; and--for the most innovative, 
prolific producer in history, the United States of America--energy can 
and must be a tool for leadership in a complex world.
    That is what the men and women of the Bureau of Energy Resources 
seek to do every day. I served as Deputy Assistant Secretary from the 
Bureau's inception in 2011 until August 2014, when I assumed the role 
of Special Envoy and Coordinator for International Energy Affairs. In 
my tenure leading the Bureau, ENR's efforts have served as a force 
multiplier, strengthening U.S. leadership in global energy security.
    It is a profound honor to be considered to serve as the Bureau's 
first Assistant Secretary. I started my career serving as a 
professional staff member in the House Foreign Affairs Committee, so I 
know the value of close consultation and partnership with Congress. And 
I am humbled to appear before Congress, back where I started, seeking 
your confidence to serve the American people in this capacity.
    Most importantly, I am joined today by my wife, Rae Ringel, and my 
four children, as well as my parents and mother-in-law. My parents and 
their families found a home in this country after fleeing the Nazi's 
advance in Europe. My great aunt, Tony Sender, whom my eldest daughter 
is named for, was elected a Member of Parliament through most of the 
Weimar Republic. She too fled to the United States, supporting the U.S. 
intelligence effort and ultimately named by Eleanor Roosevelt to 
represent the United States at the U.N. My family history has led me 
from a young age to appreciate what America has done for me, and 
strengthened my resolve to give something back to my country and 
contribute what I can, to ensure our leadership in the world endures. 
Today, as energy has become the foundation for economic growth, 
political stability and national security in every part of the world--I 
am grateful to have the opportunity to contribute in this area.
    We are living through truly revolutionary times in energy--from oil 
to gas to renewable energy. Due to advances in technology and private 
investment, U.S. natural gas production has hit record highs, and after 
years of decline, U.S. oil production also rose dramatically. And at 
the very same time, new investment in U.S. renewables over the past 2 
years is on track to exceed $80 billion.
    But let us be clear, no matter how much energy we produce at home, 
the reality is that we live in a global and interlinked economy and 
energy is a global commodity.
    The United States remains committed to its role as world leader. 
Energy shortages, price volatility, and supply disruptions anywhere 
threaten economic growth everywhere, including here at home. Our 
challenge, therefore, is to look ahead, foster innovation and 
investment, assess changing markets and politics, and create business 
opportunities.
    Mr. Chairman, allow me to review a small but representative sample 
of the critical work ENR has been engaged in and priorities I will 
focus on, should I be confirmed.
    First, Iran. Within weeks of the Bureau's formation in 2011, 
Congress passed its first broad sanctions affecting Iran's oil exports. 
ENR was tasked with developing the strategy to strictly implement these 
sanctions. This was not an easy task. Iran at the time had more than 20 
customers and exported approximately 2.5 million barrels per day. Our 
efforts shrank Iran's customers from 20 to 6, and reduced exports from 
2.5 million barrels per day to just 1 million. We achieved this without 
disrupting global oil supplies or price. This unprecedented effort cut 
Iranian revenues by over $150 billion, and played a key role in forcing 
them to the negotiating table.
    Ukraine and Europe continue to be vulnerable to Russia as their 
dominant, and in some cases only, supplier. We saw this in 2005 and 
2009 when Gazprom cut off gas supplies to Ukraine and parts of Europe 
and Turkey. Russia continues to use energy to gain and maintain 
political leverage over Ukraine, as well as East and Central Europe, 
recreating cold war lines between East and West. This includes the so-
called Nord Stream II project. ENR's active engagement in the region, 
in close collaboration with the European Commission, has proven vital 
to counter Russia's dominance. Just this weekend, we grew concerned gas 
could be used as a weapon against Turkey. While we hope this will not 
happen, it proves once again the urgent need to diversify resources and 
routes throughout the region.
    Beyond Iran and Russia, ENR is working with the Department of 
Defense and our Counter-ISIL Coalition partners, strengthening our 
national security by taking the fight to Daesh in Syria and Iraq. From 
the beginning, the United States targeted Daesh's oil operations by 
damaging or destroying more than two dozen mobile refineries and about 
twice as many oil collection points. In a region with a long history of 
illicit oil trade, Daesh was able to adapt quickly. But so have we. 
Today, U.S. strikes are increasingly targeting specific and strategic 
critical energy infrastructure in Daesh territory. Beyond revenue, 
Daesh uses control of energy resources as a propaganda tool to assert 
its authority and legitimacy, and relies on this as a core tenet of its 
global expansion strategy. This is why ENR remains in lockstep with the 
rest of the U.S. national security community and our international 
coalition partners to degrade and defeat Daesh.
    As we work to prevent the use of energy as a political tool or 
weapon, we are also advancing an alternate vision where cooperation in 
the energy sector fosters collaboration and prosperity. The potential 
is real--from Azerbaijan, the Caspian and Iraq through Turkey to 
Europe, from Israel to Egypt, Cyprus and Lebanon to Turkey and Europe--
energy will not lead the politics but can serve as an incentive for 
cooperation and collaboration.
    ENR has also focused its efforts closer to home, where most 
Caribbean island states and some countries in Central America are net 
energy importers. Many find themselves indebted to a dominant supplier 
through an unsustainable financial scheme that has left them no option 
for diversification and efficiency, thereby increasing their 
vulnerability. Through ENR's leadership of the interagency Caribbean 
Energy Security initiative and as the U.S. chair of the Caribbean and 
Central American Energy Task Force, we are working diligently with our 
friends and partners in the region to advance a secure energy future--
cleaner, more diverse, and more secure. ENR is also implementing the 
Connecting the Americas 2022 program, which facilitates power 
interconnections throughout the hemisphere. These programs seek to 
create an effective, integrated power market, which will stimulate 
investment in a modern energy system, thereby spurring economic growth 
throughout the region.
    Energy is a way for the United States to engage with partners and 
allies worldwide. In Asia, energy demand is increasing exponentially--
but there is no infrastructure or trading markets connecting the 
region. Energy trade relationships continue to be rewritten, with Asia 
projected to be the final destination for 80 percent of regionally 
traded coal, 75 percent of oil, and 60 percent of natural gas by 2040. 
ENR's engagements in the Asia-Pacific promote market opportunities for 
U.S. companies, leaders in gas, nuclear, wind, solar, hydro, smart 
grids, and efficient generation, to help the region develop its energy 
potential. Two out of three people in sub-Saharan Africa lack access to 
electricity, which is why ENR is focused on new technologies. These 
countries have the opportunity to skip a generation of technology in 
energy, as they did so successfully in telecommunications. In the 
1990s, these countries skipped directly to mobile. Today, we should 
focus on 21st century solutions utilizing ALL natural resources--from 
those requiring extraction to those requiring capturing; from oil and 
gas to wind and sun.
    Mr. Chairman, all you need to do is drive by a gas station on a 
regular basis to know that oil and gas markets are volatile. This 
produces both pain and gain, depending on where you are on the producer 
and consumer scale. If confirmed, I will continue to make sure we are 
attentive to the political instability consequences of long-term major 
price disruptions on countries that rely on hydrocarbon revenues for a 
significant share of their budgets. These are the countries that will 
face increasing challenges, including political and social instability, 
as their projected budget revenues decline in a lower for longer price 
environment. We should focus on these countries as they are forced to 
cut expenditures and social benefits, and continue to promote 
diversification of their economies away from just energy revenues.
    In conclusion, Mr. Chairman, I fervently believe in the critical 
role energy plays in our national security and that of our friends and 
allies. I look forward to your questions.

    The Chairman. Ms. Ebert-Gray

 STATEMENT OF CATHERINE EBERT-GRAY, NOMINATED TO BE AMBASSADOR 
 TO THE INDEPENDENT STATE OF PAPUA NEW GUINEA, AND THE SOLOMON 
            ISLANDS, AND TO THE REPUBLIC OF VANUATU

    Ms. Ebert-Gray. Mr. Chairman and members of the committee, 
I am honored to appear before you today as President Obama's 
nominee to be Ambassador of the United States to Papua New 
Guinea, Solomon Islands, and Vanuatu.
    With the Chairman's permission, I would like to quickly 
introduce my family. My husband, Ian Gray, is also a State 
Department employee, as well as my son, Tommy, and my daughter, 
Claire, with me. My family has shared both the adventures and 
the sacrifices of my public service career, and for that I am 
profoundly grateful.
    I recently completed service as Deputy Assistant Secretary 
in the Bureau of Administration. This role prepared me for 
effective interagency and multinational collaboration. For four 
years I provided oversight to the foreign affairs supply chain, 
I supported crises around the globe, and I assisted with 
operational transitions in Iraq and Afghanistan. I have also 
had the privilege to serve in eight countries since I joined 
the Foreign Service.
    Half of my professional life since college, in fact, has 
been spent in the Pacific, including one adventurous and prior 
tour in Papua New Guinea. During this time I developed a great 
fondness for the people, history, and cultures of the region, a 
region of both promise and unique challenges.
    I was introduced to these exotic nations as a student of 
World War II history. My father served on the USS Chanticleer 
in the Pacific theater. My father-in-law was an Australian Air 
Force tail gunner. To this day, the events of the Second World 
War have crystalized an enduring friendship between the United 
States and the people of Melanesia. As stated by Secretary 
Kerry, America's security and prosperity continue to be closely 
and increasingly linked to our neighbors in the Asian Pacific.
    If confirmed, I will continue to advance the United States 
overarching goal in Papua New Guinea, Solomon Islands, and 
Vanuatu to help foster sustainable, transparent, and inclusive 
economic growth, and to support host nation efforts to 
strengthen education, health, and security.
    Exxon-Mobil's 2014 launch of its liquefied natural gas 
pipeline can be a catalyst for economic growth in Papua New 
Guinea, and each of the three nations continues to be 
appropriately focused on improved management of their natural 
resources, including fishing, mining, and forestry. As are all 
Pacific island countries, they are also deeply concerned with 
the effects of climate change on their shores.
    As you may be aware, Papua New Guinea successfully hosted 
the Pacific Island Games, the Pacific Island Forum, and the 
Asia-Pacific Economic Cooperation Meeting of Ministers 
Responsible for Forestry this year. These are very proud 
achievements for Papua New Guinea, which will also host the 
FIFA under 20 Women's World Cup Soccer next year, and in 2018 
they will host the APEC Leaders' Summit.
    Clearly, the future potential of these Southwest Pacific 
nations relies on their continued commitment to security, 
democracy, and responsible management of their mineral wealth. 
Each must tap the talents of all of its citizens, including 
women and girls. If confirmed, I will continue the work of our 
mission in gender-based programs to ensure that all of our 
assistance and public diplomacy programs in Papua New Guinea, 
Solomon Islands, and Vanuatu maintain their focus on advancing 
the status and rights of females.
    As the Pacific country with the highest rate of HIV/AIDS 
infection, Papua New Guinea also remains a partner with the 
United States in the President's Emergency Plan for AIDS 
Relief. If confirmed, I intend to work closely with other 
international donors on control and treatment of the disease in 
support of their national health care system.
    The United States shares many interests and values with the 
people of Papua New Guinea, Solomon Islands, and Vanuatu. If 
confirmed, I will be a caring leader of our mission, I will 
remain focused on the security and safety of Americans, and I 
will work closely with each nation to build on our strong 
existing relationships and to explore new areas of mutual 
interest and cooperation.
    Thank you for this opportunity to appear before you. I 
welcome the opportunity to answer your questions.
    [The prepared statement of Ms. Ebert-Gray follows:]

               Prepared Statement of Catherine Ebert-Gray

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee to be Ambassador of the 
United States to Papua New Guinea, Solomon Islands, and Vanuatu.
    With the chairman's permission, I would like to introduce my 
family--my husband, Ian Gray, also a State Department employee, as well 
as my son, Tommy, and my daughter, Claire. My family has steadfastly 
shared both the adventures and the sacrifices of my public service 
career, and for this I am profoundly grateful.
    I recently completed service as Deputy Assistant Secretary in the 
Bureau of Administration. This role prepared me for effective 
interagency and multinational collaboration. For 4 years I provided 
oversight to the foreign affairs supply chain, supported crises around 
the globe, and assisted with operational transitions in Iraq and 
Afghanistan.
    I have also had the privilege to serve in eight countries since I 
joined the Foreign Service. Half of my professional life since college, 
in fact, has been spent in the Pacific. During this time I developed a 
great fondness for the people, cultures, and history of the region--a 
region of both promise and unique challenges.
    I was introduced to these exotic nations as a student of World War 
II history. My father served on the USS Chanticleer in the Pacific 
theater. My father-in-law was an Australian Air Force tail gunner. To 
this day, the events of the Second World War have crystalized an 
enduring friendship between the United States and the people of 
Melanesia. As stated by Secretary Kerry, America's security and 
prosperity continue to be closely and increasingly linked to our 
neighbors in the Asia Pacific.
    If confirmed, I will continue to advance the United States 
overarching goal in Papua New Guinea, Solomon Islands, and Vanuatu to 
help foster sustainable, transparent, and inclusive economic growth, 
and to support host nation efforts to strengthen education, health, and 
security. Exxon-Mobil's 2014 launch of its liquefied natural gas 
pipeline can be a catalyst for economic growth in Papua New Guinea; and 
each of the three nations continues to be appropriately focused on 
improved management of their natural resources, including fishing, 
mining, and forestry. As are all Pacific island countries, they are 
also deeply concerned with the effects of climate change on their 
shores.
    You may be aware that Papua New Guinea successfully hosted the 
Pacific Island Games, the Pacific Island Forum, and the Asia-Pacific 
Economic Cooperation (APEC) 3rd Meeting of Ministers Responsible for 
Forestry this year. These are proud achievements in Papua New Guinea, 
which will also host the FIFA under 20 Women's World Cup Soccer 
Tournament in 2016 and APEC Leaders' Summit in 2018.
    Clearly, the future potential of these Southwest Pacific nations 
relies on their continued commitment to security, democracy, and 
responsible management of their mineral wealth. Each must tap the 
talents of all of its citizens, including women and girls. If 
confirmed, I will continue the work of our mission in gender-based 
programs to ensure that all of our assistance and public diplomacy 
programs in Papua New Guinea, Solomon Islands, and Vanuatu maintain 
their focus on advancing the status and rights of females.
    As the Pacific country with the highest rate of HIV/AIDS infection, 
Papua New Guinea also remains a partner in the President's Emergency 
Plan for AIDS Relief. If confirmed, I intend to work closely with other 
international donors on control and treatment of the disease in support 
of the national health care system.
    The United States shares many interests and values with the people 
of Papua New Guinea, Solomon Islands, and Vanuatu. If confirmed, I will 
be a caring leader of our mission, I will remain focused on the safety 
of Americans, and I will work closely with each nation to build on our 
strong existing relationships and to explore new areas of mutual 
interest and cooperation.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you. I will be happy to answer any 
questions you may have.

    The Chairman. Mr. Marciel.

        STATEMENT OF HON. SCOT ALAN MARCIEL, NOMINATED 
             TO BE AMBASSADOR TO THE UNION OF BURMA

    Mr. Marciel. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear before you today as 
President Obama's nominee to serve as the United States 
Ambassador to Burma. I thank the President and Secretary Kerry 
for the confidence they have placed in me, and I am grateful to 
the members of the committee for the opportunity to speak to my 
qualifications and intentions.
    I would also like to begin by thanking my family--
unfortunately, they could not join me today--my wife, Mae, my 
daughters, Lauren and Natalie, and my parents for their love 
and support. The Foreign Service is a family effort, and I have 
been really fortunate to have such a wonderful family by my 
side for all these years.
    I joined the Foreign Service in 1985 and have had the 
privilege of serving and representing the United States in six 
overseas assignments, as well as in Washington. I believe 
deeply in public service and have sought throughout my career 
to advance our country's interests and promote its values. If 
confirmed, serving as Ambassador to Burma would be an 
incredible opportunity to continue this work in a country whose 
people look to America to support their own efforts to build 
democracy after decades of military rule.
    The past half-century has not been kind to the people of 
Burma. A country that in the early 1960s was considered one of 
the brightest prospects in Asia suffered through many years of 
conflict, bad economic policy, and repressive rule, resulting 
in intense conflict, poverty, weak institutions, and a deep and 
pervasive lack of trust between the people and their 
government.
    I visited Burma several times between 2005 and 2010, and it 
was evident that the country had dug itself a very deep hole. 
In 2011, the current government began to open up. It released 
political prisoners, including democracy leader Aung San Suu 
Kyi, allowed significantly greater freedom of press, 
association and expression, and began economic reforms.
    After the years of cool relations, the United States 
responded to Burma's opening by stepping up engagement. Our 
effort has been dedicated to promoting and supporting Burma's 
democratic transformation, increasing respect for human rights, 
encouraging economic reform, and helping to advance peace and 
national reconciliation.
    Most recently, we support the country's efforts to make the 
November 8 parliamentary elections as good as they could be. We 
were very aware of the numerous flaws in the elections, but we 
also saw that Aung San Suu Kyi and her National League for 
Democracy, along with many other parties, viewed the elections 
as the best opportunity to move the country toward greater 
democracy and reform.
    The elections themselves turned out to be reasonably well 
run. The people turned out in droves to vote for change, and 
the opposition NLD party won by a landslide.
    The elections represent an important step forward, but 
there remains an enormous amount of work to do, starting with 
ensuring a smooth transition to the new government expected to 
take office in April.
    Most of this is work the people of Burma have to do. They 
have to build their economy, overcome the decades of distrust 
to advance the peace process and national reconciliation, 
reform their security forces, strengthen respect for human 
rights, and mold their constitution into a document more 
fitting for a democracy.
    But as they work on these challenges, the people of Burma 
want us there to support and, where possible, help them. We 
cannot fix their problems for them, but we do have a role to 
play, engaging diplomatically to encourage progress, calling 
out behavior that opposes reforms, and suggesting ways forward; 
and, where appropriate, offering assistance to promote economic 
development, help develop critically important civil society, 
build institutions, fight poverty and disease. This is what we 
have been doing, and this is what, in my view, we need to 
continue to do.
    If confirmed, I will continue America's clear focus on 
supporting those people and organizations in Burma who are 
working to build peace and democracy and to increase freedom 
and prosperity. We will need to engage the new government of 
Burma right away to encourage progress, to tackle structural 
problems that have not been addressed, and to continue broad-
based reforms while moving toward peace and national 
reconciliation. We will have to encourage the still-powerful 
Burmese military to support rather than impede progress, and we 
need to continue our focus on the troubling situation in 
Rakhine State. The treatment of ethnic and religious 
minorities, including the Rohingya, is critical for Burma's 
efforts to bring unity to a country that for too long has been 
divided.
    If confirmed, I will work with the government, civil 
society, and international community to promote progress for 
all communities in Rakhine, including the Rohingya and the 
ethnic Rakhine.
    We have long been and remain today a good friend of the 
people of Burma. With the recent reforms in elections, these 
people will now have the best opportunity in generations to 
move toward a freer, more democratic, and more prosperous 
future. We should do all we can to support and assist them.
    Thank you again for considering my nomination. I look 
forward to your questions.
    [The prepared statement of Mr. Marciel follows:]

                   Prepared Statement of Scot Marciel

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am honored to be President 
Obama's nominee to serve as the United States Ambassador to Burma. I 
thank the President for the confidence he has placed in me by sending 
my name forward to the Senate for consideration, and also thank 
Secretary of State Kerry for his support. I am grateful to the members 
of the committee for this opportunity to speak to my qualifications and 
intentions. I also want to acknowledge and express appreciation for the 
very important role that Congress has played on Burma policy for many 
years.
    I also want to thank my family--my wife, Mae, my daughters, Lauren 
and Natalie, and my parents for all of their love and support. The 
Foreign Service is a family effort, and I have been very fortunate to 
have such a wonderful family by my side.
    I joined the Foreign Service in 1985, and have had the privilege of 
serving and representing the United States in six overseas assignments, 
as well as in Washington. I believe deeply in public service, and have 
sought throughout my career to advance our country's interests and 
promote its values. If confirmed, serving as Ambassador to Burma would 
be an incredible opportunity to continue this work in a country whose 
people very much look to America to support their efforts to build 
democracy after decades of military rule.
    The past half-century has not been kind to the people of Burma. A 
country that in the early 1960s was considered one of the brightest 
prospects in Asia suffered through many years of internal conflict, bad 
economic policies, occasional isolation, and repressive authoritarian 
rule, resulting in extensive poverty, weak institutions, and--perhaps 
most importantly--a deep and pervasive lack of trust between the people 
and their government, and between different communities. I visited 
Burma several times between 2005 and 2010, and it was evident that the 
country had dug itself a very deep hole.
    In 2011, the current government began to open up. It released 
political prisoners, including democracy leader Aung San Suu Kyi, 
allowed significantly greater freedom of press, association, and 
expression, began economic reforms, and opened itself to a much greater 
extent to the international community.
    After many years of very cool relations, the United States 
responded to Burma's opening by significantly stepping up engagement. 
We sent out our first Ambassador in many years, ramped up assistance, 
and sent a steady stream of senior visitors out to work with the 
government, opposition, and civil society. Our effort has been 
dedicated to promoting and supporting Burma's democratic 
transformation, increasing respect for human rights, encouraging broad-
based economic reform, and helping to advance national reconciliation 
by creating conditions to end the civil war that has plagued the 
country since its independence.
    We focused significant energy on supporting Burma's efforts to make 
the November 8 parliamentary elections as good as they could be. We 
were aware of the numerous structural and constitutional flaws, but 
also saw that Aung San Suu Kyi and her National League for Democracy 
(NLD) party, along with many ethnic-based parties and others, viewed 
the elections as the best opportunity to move the country toward 
greater democracy and reform. In the end, as everyone here knows, after 
a period of competitive, open campaigning, the elections themselves 
were reasonably well run, and the people turned out in droves to vote 
for change. Aung San Suu Kyi's NLD party won in a landslide, and--
importantly--many of the ruling party's candidates conceded defeat.
    The elections represent an important step forward, but there 
remains an enormous amount of work to do, starting with ensuring a 
smooth and effective transition to the new government, with the next 
President expected to take office in April. Most of this is work the 
people of Burma have to do. They have to build their economy, overcome 
decades of distrust and prejudice to advance the national 
reconciliation process, build institutions, reform their security 
forces, strengthen respect for and protection of human rights and 
fundamental freedoms, mold their constitution into a document more 
fitting for a democracy, and much more.
    As they work on these enormous challenges, the people of Burma--at 
least the vast majority of them--want us there to support and, where 
possible, help them. We cannot fix their problems for them, but we do 
have an important role to play: engaging diplomatically to encourage 
progress, call out behavior that opposes reforms, and suggest ways 
forward; offering assistance to help develop the critically important 
civil society, build institutions, and fight poverty and disease; and 
offering ideas and reaffirming key democratic values through our words 
and our deeds.
    This is what we have been doing and, in my view, this is what we 
need to continue to do. If confirmed, I will continue America's very 
clear focus on supporting those people and organizations in Burma who 
are working so hard to build peace and democracy, increase respect for 
human rights, address the problems of human trafficking, promote broad-
based economic development, and develop trust. It is also important 
that as the people of Burma take the courageous steps necessary to end 
the decades of ethnic fighting that the United States provides the 
support that will enable lasting reconciliation and peace.
    We will need to engage the new Government of Burma right away to 
encourage progress on all these issues. We will urge the Government and 
Parliament to tackle structural problems that have not yet been 
addressed, and which marred the recent elections, and to continue 
broad-based reforms. We also need to continue to support Burma's 
critically important civil society, and also do all we can to encourage 
the still-powerful Burmese military to support rather than impede 
progress.
    We also need to continue our focus on the situation in Rakhine 
State. The situation there is deeply troubling. We have already made 
clear to Burma's authorities that the treatment of ethnic and religious 
minorities, including the Rohingya, is critical for their efforts to 
bring true unity to a country that for too long has been divided along 
ethnic and religious lines. If confirmed, I will work with the 
government, civil society, and the international community to promote 
the joint stability and prosperity of all communities in Rakhine, 
including the Rohingya and the ethnic Rakhine populations, and that 
ensure all the people living in the country are able to enjoy dignity, 
justice, and their human rights and fundamental freedoms.
    We have long been, and remain today, a good friend to the people of 
Burma. With the recent reforms and elections, those people now have the 
best opportunity in generations to move toward a freer, more 
democratic, and more prosperous future. We can and should do all we can 
to support and assist them.
    Thank you again for considering my nomination. I look forward to 
your questions.

    The Chairman. We thank you all for your testimony.
    Mr. Hochstein, I want to first thank you for coming to our 
office several months ago to walk us through strategically what 
the State Department is doing to try to diversify energy 
supplies in Europe. It was very helpful to us. I do not even 
know at the time if you were even nominated for this position, 
but I thank you for doing that.
    For the record, I would like for you to talk a little bit 
about that. I know that many of our European friends are 
heavily dependent on Russia for energy. Poland, for instance, 
imports 500,000 barrels a day, 96 percent of their oil. One-
third of the natural gas supplied to Europe comes through 
Russia. Could you talk a little bit about how you see going 
forward what we would do to help our friends diversify their 
energy supplies?
    Mr. Hochstein. Senator, thank you. I think that is one of 
the most critical areas of what we need to focus on today. The 
vulnerability that Europe has is split in two. The eastern and 
central part of Europe is where the real vulnerability lies, 
and the vulnerability is not only in oil, it is primarily in 
gas, where Russia has used that particular tool and dependency 
as political leverage.
    Today, because of the tradition and history of the cold 
war, the infrastructure all leads from Russia through Ukraine 
into Eastern and Central Europe. So several countries there, if 
you look beyond Poland, Bulgaria, Hungary, and Romania, et 
cetera, are nearing between 70 and 90 percent of their 
dependency on gas comes from this one single supplier.
    While we were in a weak position to respond to the 
aggressive action in 2009, we have done a lot of work since 
2009, when the cutoff really affected large parts of Europe. In 
2014, when they cut the gas in June to Ukraine, we were able to 
get reverse flows of gas into Ukraine against their 
expectations, but that is not enough.
    What needs to happen is new infrastructure projects that 
will interlink this area of Europe, from the East Balkans to 
the West Balkans, south and north of that, to be able to make 
sure that any gas that comes in is able to flow. That does not 
exist today. It all goes in one direction, and it all comes 
from one source.
    We are working closer today with the EU than ever before to 
be able to make that strategy a reality. We have helped them 
through thinking through some of this strategically. I have 
been traveling extensively throughout the region, and we have 
prioritized this throughout the administration to be able to 
see a conclusion to that.
    Next week there will be a signing in Sofia in Bulgaria of 
the final investment decision on a new pipeline that will 
connect Greece to Bulgaria. That will allow flows from 
Azerbaijan through Turkey to go into Bulgaria. It will allow 
potentially Israeli or Egyptian gas to come in from the Eastern 
Mediterranean and Kurdish gas from Iraq in the future, a few 
years from now, to enter as well. In addition, if there will be 
an LNG terminal there, American gas can enter there as well. 
That will create real competition, lower prices, and a total 
and complete diversification of resources.
    Russia does not need to be out of the game, they just have 
to stop messing with the game, and I think if we have these 
projects, that will happen.
    The Chairman. Right now, we are the only country in the 
world, I guess, that does not export our petroleum, and I am 
just wondering if you think that it is in our national interest 
for us to be able to do so.
    Mr. Hochstein. As you know, Mr. Chairman, we have begun--we 
have licensed the gas exports, and the first cargo will go out 
in January, and we will begin the historic transition to an 
exporter of natural gas. The discussion on the petroleum side, 
on crude, we do export products. So refined products of crude 
are exported, and lately or recently we have started exporting 
condensates as well.
    I think I know that there is a debate, a very healthy 
debate here in Congress and in the administration, and I think 
that is still something that we are talking about. I look at it 
not from the domestic economic issues but from the foreign 
policy side, and I think that today in the American picture of 
where we are today, I am not sure if we lifted the ban there 
would actually be exports because of where we are. But there is 
no doubt that several of our allies have asked for it and are 
interested in it.
    I do not know that it will have a material effect as much 
as a psychological one, but I know that there are several other 
considerations to consider when making this decision.
    The Chairman. I note the good nonanswer. [Laughter.]
    I would have expected you to give that answer, but I do 
appreciate the conversations we have had in private.
    As it relates to Iran, when do you expect them to get back 
up to full capacity, and who is it most specifically they will 
be dealing with relative to their own exports?
    Mr. Hochstein. So, today they are still under sanctions, 
but assuming that they fulfill their side of the agreement and 
sanctions are removed, they will be able to increase their 
exports by a significant amount in fairly quick order, both 
because of how much oil they have in storage and because of the 
capability of some of the fields to increase. But I do not 
think they can go--I do not expect them to be able to go back 
to their previous levels prior to 2012 all that quickly. They 
are entering the market, or they are reentering the market at a 
difficult time for the market, where crude is at $45. Their 
OPEC competitors are protecting their market share rather than 
protecting price, and they have a lot of work to do on their 
own fields.
    They will have to deal with companies that will be 
interested in taking the considerable risk of going in, the 
high insurance rates, and they will have to have a new kind of 
contract mechanism that will be attractive to those companies.
    So I think it is going to take a lot more time than people 
think. But in the short order, there will be a bump up of 
exports. On gas, I think that it will be a lot longer than 
that.
    The Chairman. Mr. Marciel, you talked about a number of the 
problems that exist in Burma, and I appreciate you doing that 
in your presentation. And obviously, we are excited about the 
election process that just has occurred. But for all the 
promise of the political transformation of the country, serious 
challenges confront them, as you know. Ethnic strife, 
persecution of the country's Muslim minority, mass corruption, 
human rights abuses by the military, and the rise of Buddhist 
nationalism, among other challenges, threaten to undermine the 
transformation.
    I just came from a country, Egypt, which has a different 
set of challenges that we are trying to figure out a way to 
balance our efforts there in an appropriate way. But how would 
you suggest that our nation balance our objectives there 
appropriately, ushering them along but also urging them to deal 
with some of the internal issues that they have to deal with?
    Mr. Marciel. Thank you, Mr. Chairman. You outlined some of 
the incredible number of challenges that the country faces. I 
think since we began increased engagement in 2011 when the 
current government began the reform, we have been very focused 
on, broadly defined, supporting the reform effort, and that 
includes obviously moving toward a more democratic system, 
improving respect for human rights, as well as rule of law, 
promoting broad-based economic development, dealing with the 
ethnic conflict and the peace process.
    So I think going forward, the first step I would say is 
doing all we can to ensure a smooth transition. This is kind of 
uncharted territory for Burma. A transition to what we expect 
would be a government led by what has been the opposition, NLD, 
that would take place in April. So our focus is very much on, 
again, doing what we can to ensure that transition happens, and 
then we would expect the incoming government to focus on broad-
based economic development, but also addressing many of these 
challenges. Aung San Suu Kyi has spoken out for many years 
about the need to improve human rights, the peace process, all 
of these things.
    So I think we want to be broadly supportive of the incoming 
government, and at the same time, where there are challenges 
and particularly difficult issues, I would highlight the 
treatment of the Rohingya for one, have very honest 
conversations with both the incoming government but also other 
players in the Burmese system who might be less enthusiastic 
about reforms.
    The Chairman. Thank you.
    Out of courtesy to my colleagues, I am going to move on to 
Senator Cardin. Thank you so much for the way you are the 
ranking member of this committee, and I look forward to your 
questions.
    Senator Cardin. Well, thank you, Mr. Chairman.
    First, I thank you for accommodating these hearings, very 
important positions. And as the Chairman has always done, he 
has expedited the procedures of our committee, and I very much 
appreciate that.
    I thank all of our nominees that are here for your 
willingness to serve in the United States and the public. We 
know it is not easy. It is challenging, in some cases 
dangerous, and you do this because of your commitment to our 
country and our principles. And we thank you, and we thank your 
families because we know you cannot do it without a supportive 
family, so we very much appreciate that very much.
    To Secretary Marciel, I want to personally thank you for 
your help in the Subcommittee on Eastern Asian and Pacific. You 
have been a key advisor to us, and we very much appreciate you 
always being willing to help us understand the challenges in 
that region.
    And now you are going to take on one of the most difficult 
challenges in Burma. You talked about Burma, and we all agree 
that they have made incredible progress. There is no question 
about that, from the military government to having elections. 
But as you pointed out, the Rohingyas were being discriminated 
against. They were not even included in the election, and there 
are serious issues with regard to migration, refugees, 
trafficking, et cetera.
    I guess I would encourage you to be specific with the 
Burmese as to what they need to do in order to go to the next 
level. We find that many countries in transition make some 
immediate progress, but then they stall and in some cases go in 
the wrong direction.
    So could you be a little more specific as to how we can 
advance the progress in Burma, whether it is going to require 
the United States to encourage, along with our allies, 
constitutional reform, so that we know that we have the 
framework for true transformation of that country into a more 
open and democratic society?
    Mr. Marciel. Thank you, Senator Cardin, and thank you for 
your kind words. I would say that, again, as I used the term 
earlier, this is uncharted territory. It is uncharted territory 
for the Burmese as they move to this transition, to a 
government that, given NLD's landslide victory, we would expect 
to be led by the NLD.
    I think, at the risk of speaking on behalf of the Burmese 
people, it was pretty clear from just the vote totals that they 
were voting for change. They were saying we want more when it 
comes to reform, more change, better lives, that sort of thing. 
So I think that the new government comes in with a mandate for 
more change. Obviously, that change is not going to be only on 
the issues that we are most concerned about regarding human 
rights, but I would expect that would be part of it.
    So some of the challenge is going to be the new 
government's ability to work with the other key players, 
certainly the military. The military will continue to have 25 
percent of the seats in Parliament for the foreseeable future 
at least, and will continue to be able to name key ministers, 
including the Minister of Home Affairs, the Minister of 
Defense, that sort of thing.
    So I think one of the specific things we will do, we 
already are doing, is encouraging a smooth transition toward 
that new government, including dialogue between the NLD, 
specifically Aung San Suu Kyi, the military, and others, so 
that they can find a way to work together that allows for 
further reform.
    So I think the impetus for reform is quite strong within 
the country, but there are going to be some groups that might 
resist that, and part of what we should do is focus on trying 
to encourage all groups to support that reform and not get in 
the way of what the Burmese people have said.
    I think there are some specific things, technical 
assistance in some areas where they need some help to get some 
things done, better rule of law training, these sorts of 
things. And on the situation in Rakhine State, which is one 
where there is not a lot of support for treating everybody in 
Rakhine State with equal protection of the law, I think that's 
a more long-term effort, that we have to have some frank 
conversations, but also perhaps offer some specific suggestions 
about here are some things that you might look at doing to help 
them overcome what may be one of their most difficult 
challenges.
    Senator Cardin. Thank you for that answer.
    Ms. Ebert-Gray, human rights is a critical issue in the 
Pacific Islands also. It is where America's presence can make a 
huge difference. It is one of the great contributions that we 
make through our missions in other countries. In the Pacific 
Islands, though, we hear not only about the democratic 
institutions that are challenged but also their focus on the 
climate change issues and how it is affecting the security of 
their people.
    How do you see your role in advancing human rights in the 
Pacific Islands? And you can include in that how you would deal 
with their specific concerns on climate change, which are not 
necessarily the same as the non-Island world.
    Ms. Ebert-Gray. Thank you, Senator. The Pacific Island 
nation leaders are deeply concerned about climate change, 
understandably so, and I understand they met with President 
Obama this week in Paris to discuss their concerns. Since 2000, 
the United States has committed over $60 million in climate 
change adaptation programs, including mangrove preservation in 
Papua New Guinea and ecosystem adaptation in the Solomon 
Islands, and there certainly will be more programs to come.
    As far as human rights, according to our human rights 
reports, all three nations actually have a legal foundation 
which respects individual liberties, freedom of the press, 
independent judiciaries, and many of the other foundations that 
are necessary. But all three countries also suffer with many 
abuses. They have discrimination against women and girls. They 
have poor police across all three islands, a number of 
slowdowns in the judiciary and other ways that human rights are 
not getting the attention and the corrections that are 
necessary.
    We have invested through the years in human rights 
improvements and, if confirmed, I hope to continue to focus on 
both areas and bring energy and attention to those two high 
global priorities.
    Senator Cardin. Thank you.
    Mr. Hochstein, I want to get one question in to you 
because, to me, good governance and transparency is critically 
important on energy resources, and you have a major 
responsibility here.
    I listened to your statement, I read your statement, and I 
certainly agree with the points that you have made in every 
major area, but I want to concentrate on ISIL for one moment. 
According to the Financial Times, there is still $1.5 million 
from ISIL a day going into the black market. ISIL presents a 
unique challenge to the civilized world. And yes, it is right 
for us to try to take out their energy resources, as we do, as 
our military does, but we have got to figure out new ways to 
stop the flow of any of their resources that go into any market 
for financial support for their terrorist activities.
    So can you just share with us your views on how we can take 
every conceivable step to destroy any financial ability that is 
going to ISIL through oil or gas resources?
    Mr. Hochstein. Thank you, Senator. I could not agree more. 
What we have tried to do over the last few months, especially 
since--I will say what I can in an open hearing, and I am happy 
to do more in a different setting--since the Abu Sayyaf raid, 
my team has been able to look, together with the Pentagon, at a 
lot of the details of how it is managed.
    I do not believe that the revenue they are generating is 
coming necessarily through the exports, or smuggling rather, 
across borders. Most of it is being consumed and generated 
inside the areas of Iraq that are under their control, as well 
as Syria, including trade with the regime. But it is not only 
about the revenues. It is also about using these resources as a 
means to entrench their control of the territory that they 
hold.
    What we have therefore done is instead of trying to hit 
just a number of targets that, as you suggested, is less 
effective, is look at it from the full value chain, from the 
holding of the territory, the production of the oil and the 
gas, the processing, the refining, and putting it on the trucks 
which are the veins, and getting it out into the economy. The 
way they generate their revenues is largely at that early 
stage. After that, what happens is more about supporting the 
territory than revenue, and that is why you have seen over the 
last few weeks a stepped-up approach that is not only more 
bombings but a different kind of bombing. We are going after 
different assets that I believe are already having a 
significant impact, but we can do a lot more, and we are 
working with my colleagues at the Pentagon, at Centcom, to 
figure out what is the right mix of which targets to go after.
    So I can expand a little bit more in----
    Senator Cardin. That is very helpful. I think in a 
different setting we should talk about the different avenues of 
where we can stop the flow of revenues coming in to ISIL, and 
you make a good point, that if it is at the early stages of the 
chain, hitting the later stages is not going to make much of a 
difference. But it does still stop the supply chain, which 
could affect their revenues. We really need to think outside 
the box to stop any possibility of them benefitting from these 
resources.
    Mr. Hochstein. We have dedicated now a whole team that is 
working, embedded together with some folks at DOD and out in 
the field, to be able to help in giving that. We have been 
doing an analysis of the expansion of the oil and gas 
infrastructure gains for the last two years, and it did not 
start now. It is a very strategic taking of territory based on 
infrastructure and resources. So we are happy to expand on 
that.
    Senator Cardin. Thank you.
    The Chairman. Very good.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Mr. Hochstein, I just want to ask you a question following 
up on what Senator Cardin had talked about.
    First, thank you to all of you for being here, and to Mr. 
Marciel, thank you very much for joining me in my office as 
well. Thank you.
    Mr. Hochstein, you mentioned the expansion of oil and gas 
gains by ISIS. Where are their gains today? How much do they 
have today compared to where they were when we first started 
our air strikes?
    Mr. Hochstein. So the airstrikes that we started with many 
months ago targeting the energy sector really went after, as I 
said in my testimony, mobile refineries and some of the oil 
collection points. And that disrupted for a while, and it 
reduced the revenues and the profits, I would say, because what 
you can do with the oil when you have a refinery, it is a 
higher value per barrel that you produce. So we were able to 
reduce that value.
    But they adapted. And what you see in a lot of countries, 
especially in post-conflict countries, they are able to do 
things that Halliburton and Exxon would love to be able to do 
but they cannot with using barbed wire and some Scotch tape, 
and they have been adaptive.
    So what we have done is now, with the new information that 
we have, looking more strategically at that value chain, began 
a different bombing campaign that will target it differently. 
So taking out the trucks in the last couple of weeks, looking 
at some of the strategic hits that we have done, I believe that 
we have already seen--and I can show that to you in a different 
setting--that there has been a material change on the ground 
today. I cannot give you an answer as to what has that $1.5 
million a day or $1 million a day figure changed to. If you 
give me a couple of weeks, I can.
    Senator Gardner. Do we believe they have more means of 
production today than they did in terms of energy----
    Mr. Hochstein. No, no.
    Senator Gardner. Okay, thank you very much.
    Further questions along the same lines of energy, 
discussions that we have been having. You talked a little bit 
about some of the negotiations in Iran in your testimony. You 
talked about the $150 billion that Iran faced in cuts to their 
oil revenues by the sanctions that were put in place. Do we 
know what an estimate would be of the increase of Iranian 
revenues will be through international sanctions relief when it 
comes to oil?
    Mr. Hochstein. It is hard to put a dollar figure to that 
because I do not actually have access to their engineering in 
their fields. They have had a lot of cannibalization of their 
fields after years of sanctions, so they will have to do a lot 
of work to be able to do that effectively and efficiently. So I 
cannot tell you a dollar figure of how much that will be. I do 
not know how many barrels they are going to produce, and I do 
not know what that is going to do.
    If they come online all of a sudden instead of tempered, 
what does that do to the price of oil based on the fact that we 
have a supply glut at the moment? So there are a lot of factors 
that would have to go into it. Clearly, they cannot get 
anywhere near to where they were in early 2012 before the 
sanctions went into effect.
    Senator Gardner. How many of our trade partners are 
actively pursuing energy deals with Iran right now?
    Mr. Hochstein. There are a number, but there are----
    Senator Gardner. Who would that be, if you could?
    Mr. Hochstein. I probably should not name companies 
specifically, but if you look at the press you will see some of 
the press reporting on companies, international oil companies 
that are entering--that are going there for consultations.
    But I think it is important to separate between who is 
going there for a meeting or a handshake versus what will be 
signed. The terms that we have seen of the contracts so far are 
not good enough to be able to support deals, and without the 
threat of sanctions, they cannot conclude any deals at the 
moment. I spent a lot of time reminding my friends in the 
industry overseas that sanctions are still in place and any 
violation today will be treated in the same way. But I think 
there will be fewer.
    What I hear from private conversations with the CEOs is 
that they are a lot more tentative in their approach than the 
media would suggest.
    Senator Gardner. Mr. Hochstein, do you think it is 
appropriate to include prohibitions of funding within aid 
programs for fossil fuel projects, or for coal?
    Mr. Hochstein. I think that there is--my shop is not 
necessarily involved in the decision on the--I believe that you 
mean the coal financing in the international financial 
institutions. That is administered by the Department of the 
Treasury. But because there are exceptions there for countries 
that are below the poverty line, administered as IDA, or if 
there are other exceptions, I have been supportive of the 
industry where I can based on the new guidelines.
    I met with Peabody and others when they were trying to work 
in Mongolia. We have supported, because of these special 
circumstances in Kosovo, the creation of a new facility, a new 
coal plant in Kosovo where it replaces an old, dirtier one.
    So there are restrictions in place that I live with, and 
within those there are still 79 countries or so that are 
excepted from that policy that we are still able to work in.
    Senator Gardner. But in terms of our negotiations with 
other nations, you think it can be an appropriate tool to 
restrict funding for fossil fuel projects?
    Mr. Hochstein. I think based on the agreement that was 
reached with DOECD, it is going to have a significant impact 
when it is not just the United States alone, when it is more 
countries doing it together as a policy. But I probably would 
have to let others in the Department of the Treasury decide 
what material affect that would have financially on coal 
projects.
    Senator Gardner. Mr. Marciel, turning to Burma, with the 
transition of the government completed in April, what are you 
most concerned about that could happen between April and 
January in terms of the transition? We talked a little bit 
about this in the office, but what do we need to see, what are 
you concerned that we could see and how that could affect the 
transition?
    Mr. Marciel. Thank you, Senator. What we are hoping to see, 
and I think what we expect to see is a transition that proceeds 
as it is supposed to, with the sitting of a new Parliament in 
February, which will then elect a President who would sit with 
his or her Cabinet probably in April. So what we are hoping to 
see is that no individuals or institutions try to interfere in 
that process.
    So far, as of today, the signs are good. The military 
leadership, the current president, et cetera, are all insisting 
that they will abide by the results of the voting and support 
the transition. We understand that Aung San Suu Kyi will be 
meeting with the Commander in Chief and the President this 
week, which is a very important and useful step, to have this 
dialogue to figure out how they make this transition work 
smoothly.
    And then assuming that the transition does happen--I know 
there will be a thousand challenges at least, one of the big 
ones will be expectations, as we discussed earlier in your 
office. There will be tremendous expectations for this new 
government both inside the country with people looking for 
economic benefits and further reforms, and my guess is there 
will be a lot of expectations internationally, and it will be a 
real challenge for any government, but particularly one without 
any experience in government to manage.
    Senator Gardner. And if confirmed--we talked earlier about 
the carrot and stick approach and leverage the United States 
would have in terms of the transition for the new government. 
If confirmed, what would your position be on lifting any 
remaining U.S. sanctions against Burma during the transition 
process?
    Mr. Marciel. Well, we, of course, had broad sanctions 
against Burma writ large up until 2011, when the reforms 
started. After those reforms began, we suspended some of those 
sanctions, kind of the broad sanctions against the overall 
economy, while maintaining targeted sanctions on individuals 
and entities who were either involved in human rights 
violations or were clearly blocking reforms or undermining 
reforms. So those very targeted sanctions continue today as the 
main sanctions against Burma, but the overall broad-based 
sanctions are not there because we want the economy actually to 
be healthy.
    So at this point and certainly going forward with the 
transition, I would not anticipate nor recommend any dramatic 
change to that. I think we want to see how this transition 
works, and then I think we would want to consult with the new 
government, as well as Congress, closely on any changes.
    I would note that we do--the sanctions, the targeted 
sanctions are somewhat dynamic in the sense that people can be 
taken off the designated list if they show that they have ended 
the behaviors that put them on the list. People can be added to 
the list, and we can always make adjustments when we see 
unintended consequences or problems. But what we will do is 
make sure that we are consulting closely with Congress given 
the great interest.
    Senator Gardner. But you believe that any de-listing on the 
SDN list, that any change of their listing would only occur if 
they specifically change their behavior as it relates to the 
reason they were placed on the list in the first place?
    Mr. Marciel. Right. There is a process in place that is run 
by Treasury's OFAT office, particular requirements--I am not an 
expert on it--that entities or individuals on the specially 
designated nationals list would have to follow in order to be 
considered to be removed from the list.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    We have, as you know, another panel of four people. It is 
toward the end of the year and people are trying to move out 
and hopefully get confirmed.
    Ms. Ebert-Gray, I want to thank you in particular for 
having your family here.
    To the family, know that she has been through extensive 
questioning in private and answered all kinds of other 
questions.
    So I hope that all three of you will answer any QFRs that 
come your way after this presentation today.
    We thank all of you for your service to our country. With 
that, we hope you will go on to something constructive and will 
bring the other panel up. But thank you all for being here. 
Thank you.
    Mr. Hochstein. Thank you.
    Mr. Marciel. Thank you.
    Ms. Ebert-Gray. Thank you.
    The Chairman. Mr. Hochstein, for what it is worth, you 
missed your greatest asset by not introducing your family. 
[Laughter.]
    I doubt you would have had the number of questions you had 
had you done so. [Laughter.]
    Anyway, we welcome you all. We did not realize you were 
here. Thank you.
    We will now move to the second panel. We thank you all for 
being here.
    Mr. John D. Feeley, a career member of the Senior Foreign 
Service, has been nominated to be Ambassador to the Republic of 
Panama. Mr. Feeley is currently the Principal Deputy Assistant 
Secretary of State for Western Hemisphere Affairs. Previously 
Mr. Feeley served as Deputy Chief of Mission at the U.S. 
Embassy in Mexico City, Mexico; Assessor in the Office of 
Recruitment; and Director of the Office of Central American 
Affairs. He also has served in the United States Marine Corps, 
and we thank you for that service also.
    Next we have Linda Taglialatela to be our Ambassador to 
Barbados, St. Kitts, Nevis, St. Lucia, Antigua, Barbuda, 
Dominica, Grenada, and St. Vincent and the Grenadines. I do not 
know what you did to achieve that, but we know it was something 
special. She is a career member of the Senior Executive Service 
and currently serves as Deputy Assistant Secretary of State in 
the Bureau of Human Resources, a position she has held since 
2002. She has also served as Director and Deputy Director of 
the Office of Resource Management and Organization Analysis at 
the State Department.
    Todd Chapman, a career member of the Senior Foreign 
Service, Class of Minister Counselor, is nominated to be 
Ambassador to Ecuador. He currently serves as Principal Deputy 
Assistant Secretary of State for Political Military Affairs, a 
position he has held since 2014. Mr. Chapman previously served 
as Deputy Chief of Mission at U.S. embassies in Brazil and 
Mozambique.
    Jean Elizabeth Manes. Did I pronounce that correctly?
    Ms. Manes. That is correct.
    The Chairman. Thank you. A career member of the Foreign 
Service, Class of Counselors, is our nominee to be Ambassador 
to El Salvador. She currently serves as Principal Deputy 
Coordinator in the Bureau of International Information Programs 
at the Department of State, a position she has held since 2013. 
Prior to this, she served as Deputy Director of the 
Department's Florida Regional Center and as Counselor for 
Public Affairs at the U.S. Embassy in Kabul, Afghanistan.
    I think I would remind you that your full statement will be 
entered into the record. Staying within 5 minutes is 
appreciated, and we look forward. If you would just go down, 
starting with you, ma'am, we would appreciate it. Go in order; 
and again, thank you all for your willingness to serve in these 
capacities.

    STATEMENT OF LINDA SWARTZ TAGLIALATELA, NOMINATED TO BE 
AMBASSADOR TO BARBADOS, THE FEDERATION OF ST. KITTS AND NEVIS, 
SAINT LUCIA, ANTIGUA AND BARBUDA, THE COMMONWEALTH OF DOMINICA, 
         GRENADA, AND SAINT VINCENT AND THE GRENADINES

    Ms. Taglialatela. Thank you, Mr. Chairman. Mr. Chairman and 
Senator Cardin, it is a pleasure to be here today. Thank you 
for the opportunity to appear before you today as President 
Obama's nominee to serve as the United States Ambassador to 
Antigua and Barbuda, Barbados, Dominica, Grenada, St. Kitts and 
Nevis, St. Lucia, and St. Vincent and the Grenadines. I am 
grateful to the President and Secretary Kerry for their 
confidence and support, as well as to the members of this 
committee for their kind consideration.
    Please allow me to introduce the members of my family 
present today, my brother, David Swartz, from Texas, and my 
sister, Susan Swartz, from New York. Throughout my life, my 
family, including my parents, have been an essential source of 
support. Without their love, encouragement, and belief in me, I 
would not be here today.
    Mr. Chairman, I believe that our Nation is most effective 
when we lead by example and in accordance with our values, and 
I will seek to continue in this tradition if confirmed as 
Ambassador. If confirmed, I will proudly represent the United 
States in the Eastern Caribbean, a region with which we share 
strong cultural, historical, and familial ties.
    Since achieving independence in the 1960s and 1970s, the 
nations of the Eastern Caribbean have thrived as democracies 
and maintained friendly and productive relations with the 
United States. If confirmed, my top priority as Ambassador will 
be the safety and welfare of American citizens residing in and 
visiting the Caribbean, a region that hosts nearly 2 million 
tourists annually, the vast majority U.S. citizens. Thousand 
more of our citizens live, work, or study in the Caribbean.
    I am also committed to strengthening the safety and 
security of our Caribbean partners. If confirmed, I will 
continue our efforts to bolster citizen security through the 
Caribbean Basin Security Initiative, which seeks to reduce the 
threats to citizen security by reducing illicit trafficking of 
narcotics and firearms; improving public safety by 
strengthening law enforcement, the judicial sector, and 
security services; increasing respect for the rule of law and 
human rights; and promoting crime prevention activities.
    As Ambassador, I would also work to promote fundamental 
freedoms and universal human rights, including the rights of 
the LGBTI communities, and I will pay particular attention to 
empowering and improving the status of women in the Eastern 
Caribbean.
    If confirmed, I will work to implement the Trafficking 
Victims Protection Act, including the vigorous investigation of 
cases, the prosecution and conviction of perpetrators, and the 
proactive identification of and provisions of services to 
victims.
    Several economic issues also have a deep impact on the 
Island Nations. The first is the high cost of energy. Caribbean 
nations have some of the highest electricity costs in the world 
due to their almost exclusive reliance on imported diesel fuel. 
The Caribbean Energy Security Initiative, launched by Vice 
President Biden in 2014, seeks to increase the region's access 
to energy sector financing and to improve the governance and 
diversification of Island energy sectors.
    The Eastern Caribbean continues to experience stagnant 
economic growth and high debt levels. The region is also 
susceptible to hurricanes, which in a matter of hours can set 
these tourism- and agriculture-dependent nations back several 
years. If confirmed, I will work to encourage the nations of 
the Eastern Caribbean to seek out more sustainable sources of 
energy, to build resilience to the impacts of climate change, 
and to strengthen their economies through greater 
diversification and prudent debt management.
    Next year will mark the 55th anniversary of the Peace 
Corps. Currently, 63 Volunteers work on literacy projects in 
some of the region's most vulnerable and marginalized 
communities. If confirmed, I will promote and support our Peace 
Corps Volunteers.
    Mr. Chairman and members of the committee, if confirmed, I 
look forward to working with you and your colleagues in 
Congress and with the American people to advance our shared 
interests in this most important region.
    Thank you for your gracious time. I would be happy to 
answer any questions you may have.
    [The prepared statement of Ms. Taglialatela follows:]

                Prepared Statement of Linda Taglialatela

    Mister Chairman and members of the committee, thank you for the 
opportunity to appear before you today as President Obama's nominee to 
serve as the United States Ambassador to Antigua and Barbuda, Barbados, 
Dominica, Grenada, St. Kitts and Nevis, St. Lucia, and St. Vincent and 
the Grenadines. I am grateful to the President and Secretary Kerry for 
their confidence and support, as well as to the members of this 
committee for their consideration. I look forward to speaking with you 
today about my qualifications; the myriad opportunities and challenges 
before us in Barbados and the nations of the Eastern Caribbean; and, if 
confirmed, how I can best work with the U.S. Congress to strengthen our 
already robust engagement in the region.
    Throughout my life, my family, including my parents, Leon and Anne 
Swartz, has been an essential source of support. Without their love, 
encouragement, and belief in me, I would not be here today.
    Mr. Chairman, I have had the privilege of serving our country for 
over 40 years, both as a career Civil Service employee and Foreign 
Service officer. It is a career that has afforded me the opportunity to 
see the inner workings of our government from my early days as a 
management analyst at the U.S. Government Accountability Office (GAO) 
until most recently as Deputy Assistant Secretary of State in the 
Bureau of Human Resources and Deputy Chief Human Capital Officer. My 
proven track record in resource management; Embassy operations and 
auditing; and workforce planning has equipped me well for the 
responsibilities of a chief of mission. Over four decades of service, I 
have acquired a deep understanding of how to effectively match 
resources, people, and policies to best advance our national security 
interests, protect the safety of Americans abroad, and advance the 
broad set of policy objectives that characterize our relations with the 
countries of the Caribbean.
    And, as importantly, this experience has given me a keen 
appreciation of two fundamental things: first, whatever our rank, 
position, or title, as public servants, our job is to protect and 
advance U.S. interests and values and to faithfully serve the American 
people. This means--and this is my second point--being good stewards of 
taxpayer dollars. If confirmed, these will be my guiding principles.
    Our Nation is most effective when we lead by example and in 
accordance with our values. This is what I have sought to do throughout 
my career and what I will seek to do if confirmed as Ambassador.
    If confirmed, I will proudly represent the United States in 
Barbados and the six nations of the Eastern Caribbean, a region with 
which we share strong cultural, historical, and familial ties. The 
Caribbean diaspora community in the United States, with its 
intellectual leadership, food, vibrant music, and sense of identity and 
community is a vital part of many of our cities, from Miami to New York 
and beyond. Since achieving independence in the 1960s and 1970s, the 
nations of the Eastern Caribbean have thrived as democracies and 
maintained friendly and productive relations with the United States. 
They also play an important role in supporting democracy and human 
rights across the hemisphere.
    If confirmed, my top priority as Ambassador will be the safety of 
American citizens residing in and visiting the Caribbean. The Eastern 
Caribbean hosted nearly 2 million tourists last year, the vast majority 
of whom were U.S. citizens. Additionally, a large number of our 
citizens live in the Caribbean, whether in retirement, as students at 
one of the many universities in the islands, or as dual-nationals. I 
will also work to ensure the security of U.S. Government personnel at 
our Embassies in Barbados and Grenada as well as the Peace Corps 
Volunteers serving in St. Lucia, Grenada, Dominica, and St. Vincent and 
the Grenadines.
    I am also committed to strengthening the safety and security of our 
Caribbean partners. If confirmed, I will continue our efforts to 
bolster citizen security through the Caribbean Basin Security 
Initiative. Threats to citizen security in the Caribbean are all too 
familiar: transnational criminal organizations involved in drug-related 
crimes; systemic violence; corruption; weak judicial systems and a lack 
of respect for the rule of law; and, an increase in youth involved in 
criminal activities. Through Caribbean Basin Security Initiative 
programming and strong interagency cooperation, the United States will 
continue to support Caribbean nations in a whole-of-government, 
integrated approach that links citizen security, civil society 
development, and economic prosperity. If confirmed, I will work with 
the Governments of Antigua and Barbuda, Barbados, St. Lucia, and St. 
Vincent and the Grenadines to implement the Trafficking Victims 
Protection Act, including: the vigorous investigation of incidents of 
forced labor and sex trafficking; the prosecution and conviction of 
perpetrators; and the proactive identification of and provision of 
services to victims.
    Several economic issues are having a deep impact on the island 
nations of the Caribbean. The first is the high cost of energy. 
Caribbean nations have some of the highest electricity costs in the 
world due to their almost exclusive reliance on imported diesel fuel. 
The Caribbean Energy Security Initiative, launched by Vice President 
Biden, seeks to increase the region's access to energy sector financing 
and improve governance and diversification of the islands' energy 
sectors.
    Additionally, the region continues to experience stagnant economic 
growth with youth unemployment and underemployment rates in the region 
averaging between 25-40 percent. These nations are also susceptible to 
environmental shocks, such as hurricanes, which, in a matter of hours, 
can set these tourism and agriculture dependent nations back several 
years.
    These challenges combine to create a difficult economic environment 
that prevents Barbados and the Eastern Caribbean nations from reaching 
their full potential and competing in the broader regional and global 
economies. If confirmed, I will work diligently to encourage the 
nations of the Eastern Caribbean to seek out less expensive and more 
sustainable sources of energy and to invest in job training, including 
career and technical training for youth.
    As Ambassador, I would also work to promote fundamental freedoms 
and universal human rights, including the rights of the LGBTI 
communities. I will pay particular attention to empowering and 
improving the status of women in the Eastern Caribbean. Women in these 
countries, who are well educated, play a strong role in politics and 
social issues. However, once their education is complete, many women 
are either unable to find jobs or can only find work in lower status or 
lower paying positions. Domestic and sexual violence against women 
remain grave concerns in the region, causing disproportionate, adverse 
impacts on families and youth, with victims frequently unable to rely 
upon the formal justice sector to seek redress. 
Yet despite these obstacles, the women leaders in Barbados and the 
Eastern Caribbean are extraordinary, and if confirmed, I will work to 
increase and improve the opportunities available to women and girls and 
other members of vulnerable communities.
    Next year will mark the 55th anniversary of the Peace Corps: I 
would like to acknowledge the long-standing Peace Corps presence in the 
Eastern Caribbean. St. Lucia was among the first countries to receive 
Volunteers in 1961 and continues to serve as the Peace Corps' 
headquarters in the region. Currently 63 Volunteers work on literacy 
projects in Dominica, Grenada, St. Lucia, and St. Vincent and the 
Grenadines in those nations' most vulnerable and marginalized 
communities. If confirmed, I will promote and support the efforts of 
our Peace Corp Volunteers.
    If confirmed, I look forward to representing the United States in 
Barbados and the Eastern Caribbean and to working with you and your 
colleagues in Congress on behalf of the administration and the American 
people to advance our shared interests in this important region.

    The Chairman. Thank you so much.
    Mr. Feeley.

         STATEMENT OF JOHN D. FEELEY, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF PANAMA

    Mr. Feeley. Good afternoon, Mr. Chairman and members of the 
committee. From the oath that I swore as an Eagle Scout, to the 
one I took upon commissioning as a Second Lieutenant of the 
Marines, and the oath by which I have lived and worked for the 
last 25 years as a Foreign Service officer advancing American 
interests in the Western Hemisphere, my life and career have 
been marked by public service.
    This is an enormous privilege. I thank the President and 
the Secretary for the confidence they have shown in me by their 
nomination. And it is in that spirit of gratitude that I come 
before you today to seek your approval that I might continue to 
serve our great Nation as Ambassador in Panama.
    I am joined today by my wife, a Senior Foreign Service 
officer herself from San Juan, Puerto Rico, Cherie Feeley. My 
two sons and my grandson could not be with us, but I am sure 
that the number of hits on C-Span have gone up as a result of 
them watching.
    In my current position at the State Department, I oversee 
the daily operations of our 53 embassies and consulates, from 
Canada to the Caribbean, from Mexico to Argentina. I work on 
the operating budgets, the foreign assistance programs, and the 
personnel assignments that undergird American diplomacy 
throughout this hemisphere.
    The food we eat, the energy we consume, and the goods and 
services we trade with our neighbors in the Americas have more 
of an impact, I would argue, on the daily lives of our 
country's citizens than any other region of the world. So it is 
vitally important that we know and understand these neighbors 
and partners to ensure our own security and prosperity. This is 
the essence of the President's Strategy for Engagement in 
Central America.
    And Panama, whose destiny has been entwined with ours since 
its founding, is among the most critical of our partners in 
achieving the security, prosperity, and governance goals of the 
Strategy. Panama is a good news story in many aspects, and if 
confirmed, I will work with this committee to deepen and expand 
what is already an excellent bilateral relationship.
    Panama shares our commitment to protecting democratic 
freedoms and human rights. In 2014, they defied polls and, with 
the help of robust international election monitoring, elected 
an underdog candidate as president who has made education and 
anticorruption pillars of his vision for Panama's future.
    You will recall that Panama served as host of the Summit of 
the Americas earlier this year, where landmark encounters 
between civil society organizations and the region's leaders 
occurred.
    Given its stability and relative prosperity, Panama, like 
the United States, is a destination, rather than a source, of 
immigration. And as such, Panama understands the evils of human 
trafficking and was recently upgraded on our annual Trafficking 
in Persons Report. If confirmed, Mr. Chairman, I will continue 
the good work already begun with our Panamanian partners to 
eradicate this form of modern slavery.
    Panama's geographic location makes it a bridge in both the 
physical and metaphysical sense of the word. With a robust 
economy, Panama has leveraged its bridging function to become a 
logistical center for the region. The Panama Canal is a vital 
commercial corridor for the United States. Two out of every 
three ships transiting the Canal will stop at a U.S. port.
    And the global traffic across the bridge that is Panama 
will be accentuated by the Panama Canal expansion, due to be 
completed in 2016. This expansion will bring benefits to Panama 
and the United States, potentially doubling imports on the U.S. 
East and Gulf Coasts by 2029. Put simply, the expansion will 
lower shipping costs between the United States and Asia, expand 
our markets, and create jobs for American workers.
    Another good news story: Panama is among our best partners 
working on education and innovation. The literacy rate for 15-
year-olds is high for the region, around 94 percent. 
``Bilingual Panama'' is the Panamanian Government's ambitious 
plan to bring thousands of Panamanian English teachers to study 
in U.S. universities over the next five years, and we support 
that effort fully.
    Now, Mr. Chairman, Panama is not without challenges. Its 
bridging location renders it vulnerable to organized crime. 
Narcotics trafficking and money laundering, and the corruption 
that is attendant to those illicit activities, are also threats 
to Panama's security and prosperity.
    If confirmed, I will work with Panama to address those 
ills, as well as the challenges, and in doing so I will support 
U.S. priorities such as our significant retiree and expatriate 
population that lives in Panama. I will look to support greater 
foreign investment opportunities for American businesses. And 
most of all, I will seek to work with our Panamanian partners 
to shore up the integrity of our interconnected financial and 
banking systems.
    I thank you for this opportunity, and I welcome any 
questions.
    [The prepared statement of Mr. Feeley follows:]

                  Prepared Statement of John D. Feeley

    Mister Chairman, members of the committee, from the oath I swore as 
an Eagle Scout, to the one I took upon commissioning as a Second 
Lieutenant of Marines, and the oath by which I have lived and worked 
for 25 years as a Foreign Service officer advancing American interests 
in the Western Hemisphere, my life and career have been marked by 
public service.
    This is an enormous privilege. I thank the President and the 
Secretary for the confidence they have shown in me by their nomination. 
I realize just how fortunate I am. And it is in that spirit of 
gratitude that I come before you today to seek your approval that I 
might continue serving our Nation as Ambassador to Panama.
    I am joined today by my wife of 31 years, 2 sons, one grandson, and 
17 Permanent Change of Station pack outs and moves, a Senior Foreign 
Service officer herself from San Juan, Puerto Rico, Cherie Feeley.
    In my current position at the State Department, I oversee the daily 
operations of our 53 embassies and consulates, from Canada to the 
Caribbean, from Mexico to Argentina.
    I work on the operating budgets, the foreign assistance programs, 
and the personnel assignments that undergird American diplomacy 
throughout this hemisphere.
    The food we eat, the energy we consume, and the goods and services 
we trade with our neighbors in the Americas have more of an impact on 
the daily lives of our country's citizens than any other region of the 
world.
    So it is vitally important that we know and understand these 
neighbors and partners to ensure our own security and prosperity. This 
is the essence of the President's Strategy for Engagement in Central 
America.
    And Panama, whose destiny has been entwined with ours since its 
founding, is among the most critical of our partners in achieving the 
security, prosperity, and governance goals of the Strategy.
    Panama is a good news story in many aspects, and if confirmed, I 
will work with this committee to deepen and expand what is already an 
excellent bilateral relationship.
    Panama shares our commitment to protecting democratic freedoms and 
human rights. Since 1989, Panamanians have consistently deepened their 
own democratic culture.
    In 2014, they defied polls and, with the help of robust 
international election monitoring, elected an underdog candidate as 
President who has made education and anticorruption pillars of his 
vision for Panama's future.
    You will recall that Panama served as host of the Summit of the 
Americas earlier this year, where landmark encounters between civil 
society organizations and the region's leaders occurred.
    Panama is also a partner on the global stage. Under President Juan 
Carlos Varela's leadership, Panama is to date, the only Latin American 
member of the coalition against ISIL.
    Given its stability and relative prosperity, Panama--like the 
United States--is a destination, rather than a source, of immigration 
in the region. As such, Panama understands the evils of human 
trafficking and was recently upgraded on our annual Trafficking in 
Persons Report.
    If confirmed, I will continue the good work already begun with our 
Panamanian partners to eradicate this form of modern slavery.
    Panama's geographic location makes it a bridge in both the physical 
and metaphysical sense of the word. With a robust economy, Panama has 
leveraged its bridging function to become a logistical center for the 
region.
    The Canal is a vital commercial corridor for the United States: two 
of every three ships transiting the Canal will stop at a U.S. port.
    And the global traffic across the bridge that is Panama will be 
accentuated by the Panama Canal expansion, due to be completed in 2016. 
This expansion will bring benefits to Panama and the United States, 
potentially doubling imports on the U.S. East and Gulf Coasts by 2029.
    Put simply: The expansion will lower shipping costs between the 
United States and Asia, expand our markets, and create jobs for 
American workers.
    Another good news story: Panama is among our best partners working 
on education and innovation. The literacy rate for 15-year-olds is 
around 94 percent.
    ``Bilingual Panama'' is the Panamanian Government's ambitious plan 
to bring thousands of Panamanian English teachers to study in U.S. 
universities over the next 5 years, and we support that effort.
    As the son of an English professor and the husband of a native 
Spanish speaker, no issue could be closer to my personal interest than 
that of contributing to a bilingual, bicultural, more integrated future 
in the Americas. With your consent, I will do so in Panama.
    Now, Mister Chairman, Panama is not without challenges.
    Its bridging location renders it vulnerable to organized crime. I 
mentioned trafficking in persons. Narcotics trafficking and money 
laundering--and the corruption that is attendant to those illicit 
activities--are also threats to Panama's security and prosperity.
    Economic challenges include stubborn income inequality and poverty 
despite a decade of growth, inadequate public infrastructure, and 
limited economic development outside of Panama City.
    If confirmed, I will work with Panama as it addresses these 
challenges, doing so in support of U.S. priorities such as:

--Our significant retiree and expatriate population;
--Greater foreign direct investment opportunities for American 
    business; and
--The integrity of our interconnected financial and banking systems.

    I thank you for this opportunity and welcome your questions.

    The Chairman. Thank you very much.
    Ms. Manes.

      STATEMENT OF JEAN ELIZABETH MANES, NOMINATED TO BE 
           AMBASSADOR TO THE REPUBLIC OF EL SALVADOR

    Ms. Manes. Mr. Chairman, members of the committee, it is an 
honor to appear before you today as President Obama's nominee 
to serve as the next Ambassador of the United States to the 
Republic of El Salvador. I am humbled by the trust and 
confidence President Obama and Secretary of State Kerry have 
shown by sending my name to the Senate for consideration at 
this pivotal moment in the bilateral relationship.
    I am also grateful for the support of my family, including 
members here today, my husband, Hector Cerpa, and one of our 
two daughters, Candela. Our other daughter, Connie, definitely 
wishes she could be here but she is preparing for end-of-year 
exams in college.
    I also want to thank my parents, Roger and Betty Manes, who 
instilled in me the values of hard work, dedication and 
integrity, as I watched them build our family business. They 
are tuning in remotely from Florida, as is my 90-year-young 
grandmother, Alice Masters.
    Today is even more special because it was 25 years ago that 
I started my foreign policy career in this very place, as an 
intern with the Senate Foreign Relations Committee just down 
the hall in room 452.
    I also want to recognize the current U.S. Ambassador to El 
Salvador, Mari Carmen Aponte. Under her leadership of the 
Embassy, the people of the United States have been well 
represented over the last 5 years.
    If confirmed, I look forward to working with this committee 
and others in Congress to enhance the bilateral relationship 
between the United States and El Salvador, as well as to 
increase regional integration with other Central American 
countries. This will include significant focus on three areas: 
stabilizing the security environment; improving the business 
investment climate; and strengthening government institutions.
    El Salvador is one of our closest partners in the Western 
Hemisphere. The people of El Salvador have demonstrated their 
commitment to democracy through peaceful transfer of power 
since the 1992 Peace Accords that ended the Civil War. While El 
Salvador continues to face tremendous security challenges, as 
well as a range of political, economic, and social issues, a 
stable and economically viable future is possible.
    The commitment of President Sanchez Ceren and those of 
other leaders across the Northern Triangle in developing and 
leading the comprehensive plan ``Alliance for Prosperity'' 
represents an unprecedented opportunity to solidify the gains 
of the past and build for the future. The plan reflects a 
multidisciplinary and collective approach to addressing 
fundamental issues preventing long-term growth and stability in 
the region.
    The United States is and must continue to be a central 
player in advancing these efforts. The U.S. Strategy for 
Engagement in Central America, combined with initiatives under 
the Partnership for Growth and the Millennium Challenge 
Corporation, serves as the foundation for U.S. engagement in 
Central America, and El Salvador in particular.
    We are at a crossroads in Central America. We have 
committed partners, including the host government, leaders in 
the business community, civil society, international 
organizations, and the people of El Salvador. Now is the moment 
for American leadership and investments to help guide the 
region to a better future.
    Fundamentally, the biggest asset for both the United States 
and El Salvador is the people who support this effort. While 
there are over 6 million people in El Salvador, there are over 
2 million people of Salvadoran descent who live in the United 
States. These include many community leaders across Maryland, 
California, Texas, New York, Virginia, and the District of 
Columbia. If confirmed, I will continue to strengthen these 
bonds between our two countries as we work in partnership to 
support the implementation of the Strategy.
    As outlined in the U.S. Strategy for Engagement in Central 
America, one country cannot succeed alone. Regional integration 
is a core component of the strategy. If confirmed, my team and 
I will enhance the collaboration at all levels in the region, 
with specific focus on Honduras and Guatemala. You have my 
guarantee that I will use the important role of the U.S. 
Ambassador to bring all parties together; to serve as the 
convener and facilitator of ideas; and to make the best 
investments for a stable and growing El Salvador that remains a 
strong partner with the United States.
    Mr. Chairman, members of the committee, it is an honor to 
be here, and I look forward to your questions. Thank you.
    [The prepared statement of Ms. Manes follows:]

                  Prepared Statement of Jean E. Manes

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as the next 
Ambassador of the United States to the Republic of El Salvador.
    I am humbled by the trust and confidence President Obama and 
Secretary of State Kerry have shown by sending my name to the Senate 
for consideration at this pivotal moment in the bilateral relationship. 
I am also grateful for the support of my family, including members here 
today, my husband, Hector Cerpa, and one of our two daughters, Candela. 
Our other daughter, Connie, wishes she could be here but is in the 
midst of preparing for end of year exams at college. I also want to 
thank my parents, Roger and Betty Manes, who instilled in me the values 
of hard work, dedication and integrity, as I watched them build our 
family business.
    Today is even more special because it was 25 years ago that I 
started my foreign policy career in this very place as an intern with 
the Senate Foreign Relations Committee chaired by Claiborne Pell.
    I also want to recognize the current U.S. Ambassador to El 
Salvador, Mari Carmen Aponte. Under her leadership of the Embassy, the 
people of the United States have been well represented over the last 5 
years.
    Throughout my career at the State Department, I have led complex 
organizations and negotiated large-scale initiatives. This includes my 
present position serving as Principal Deputy Coordinator for the 400-
person International Information Programs Bureau, which provides the 
State Department's worldwide outreach platform for public diplomacy. It 
also includes my previous position as the Director of Resources, 
overseeing $1.2 billion for public diplomacy domestic and worldwide 
operations. I have taken the business lessons I learned from my parents 
to ensure we are making the right investments on behalf of the American 
people and accounting for results. These have been hallmarks of my 
career.
    If confirmed, I look forward to working with this committee and 
others in Congress as I use these skills to continue to enhance the 
bilateral relationship between the United States and El Salvador, as 
well as to increase regional integration with other Central American 
countries. This will include significant focus on three areas: 
stabilizing the security environment, improving the business investment 
climate and promoting inclusive economic growth; and strengthening 
government institutions.
    El Salvador is one of our closest partners in the Western 
Hemisphere. The people of El Salvador have demonstrated their 
commitment to democracy through peaceful transfer of power since the 
1992 Peace Accords ended the Civil War, however today El Salvador is 
facing the highest homicide rates since the war, and projections are 
that the daily rate will reach more than 100 homicides per 100,000 
people by the end of this year. While El Salvador continues to face 
political, economic, and social challenges as well, a stable and 
economically viable future is possible, and the United States is 
committed to supporting the people and Government of El Salvador toward 
realizing this goal.
    The commitment of President Sanchez Ceren and those of other 
leaders across the Northern Triangle in developing and leading the 
comprehensive ``Alliance for Prosperity'' plan represents an 
unprecedented opportunity to solidify the gains of the past and build 
for the future. The plan reflects a multidisciplinary and collective 
approach to addressing fundamental issues preventing long-term growth 
and stability in the region.
    The United States is and must continue to be a central player in 
advancing these efforts. The U.S. Strategy for Engagement in Central 
America, combined with initiatives under the Partnership for Growth and 
the Millennium Challenge Corporation, serves as the foundation for U.S. 
engagement with El Salvador. We are at a crossroads in Central America. 
Down one road lies the prospect of a prosperous Central America that 
provides a home and future for its citizens. Down the other lies 
disorder and increased migration. We have committed partners including 
the host government, leaders in the business community, civil society, 
international organizations, and the people of El Salvador. Now is the 
moment for American leadership and investments to help lead the region 
to a better future.
    Fundamentally, the biggest asset for both the United States and El 
Salvador is the people who support this effort. While there are 6 
million people in El Salvador, there are over 2 million people of 
Salvadoran descent who live in the United States. These include many 
community leaders across California, Texas, New York, Virginia, 
Maryland, and the District of Columbia. If confirmed, I will continue 
to strengthen these bonds between our two countries as we work in 
partnership to support implementation of the Strategy.
    As outlined in the U.S. Strategy for Engagement in Central America, 
one country cannot succeed alone. Regional integration is a core 
component of the strategy. If confirmed, my team and I will enhance the 
collaboration at all levels in the region, with specific focus on 
Honduras and Guatemala. You have my guarantee that I will use the 
important role of the U.S. Ambassador to bring all parties together; to 
serve as the convener and facilitator of ideas; and to make the best 
investments for a stable and growing El Salvador that remains a strong 
partner with the United States.
    Mr. Chairman and members of the committee, it is an honor to be 
here and I look forward to your questions. Thank you.

    The Chairman. Thank you.
    Mr. Chapman.

         STATEMENT OF TODD C. CHAPMAN, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF ECUADOR

    Mr. Chapman. Chairman Corker, Ranking Member Cardin, and 
members of the committee, thank you for this privilege this 
afternoon to appear before you today. I am indeed grateful to 
President Obama and Secretary Kerry for the trust and 
confidence they have shown in me through this nomination to be 
the next United States Ambassador to the Republic of Ecuador.
    I would like first to publicly honor and express deep 
gratitude for my wife, Janetta, who is here with me today, and 
my two sons, Joshua and Jason, who have faithfully supported me 
in this 25-year journey in the Foreign Service. They have 
shared in the joys, in the excitement, and sometimes in the 
hardships which this life sometimes brings. I also am so 
grateful for my parents, Bob and Marilyn Chapman, who were 
always my greatest champions and my greatest cheerleaders. 
Indeed, I am a blessed man.
    During my career, I have represented this great Nation in a 
diverse group of countries, including Bolivia, Costa Rica, 
Nigeria, Mozambique, and Afghanistan. As an Economic Officer I 
promoted progrowth economic policies, implemented development 
agendas, and advanced commercial partnerships. As Charge 
d'Affaires in Mozambique, I led our implementation of over $500 
million in economic, health, and democracy programs. As Deputy 
Chief of Mission in Brasilia, Brazil, I helped provide 
direction to one of our most dynamic bilateral relationships. 
And I now serve as Principal Deputy Assistant Secretary for the 
Bureau of Political-Military Affairs, enhancing security 
partnerships around the world through peacekeeping training, 
de-mining activities, defense trade, and security assistance.
    The United States has long recognized the value and 
importance of fostering a strong and productive relationship 
with Ecuador. The United States sent its first representative 
to Ecuador in 1825 when the U.S. Senate confirmed William 
Wheelwright to serve as U.S. Consul in Guayaquil, Ecuador. In 
1839 the United States and Ecuador signed a Treaty of Peace, 
Friendship, Navigation, and Commerce. Interestingly, whereas 
the commercial and navigation clauses were written to expire 
after 12 years, the treaty stated, ``in all other parts which 
relate to peace and friendship, it shall be perpetually and 
permanently binding on both parties.''
    If confirmed, I look forward to advancing in concrete ways 
the long diplomatic tradition of peace and friendship that has 
helped define relations between our two countries. I am 
confident that working in this spirit we can expand our 
relations and develop and more fully realize a constructive 
agenda, one which advances the real interests of our countries. 
There is much for our countries to do together.
    The United States has long been Ecuador's largest trading 
partner, with two-way trade approaching $20 billion in 2014, 
more than double 2008 totals. I will work diligently, if 
confirmed, with the government and private sector to expand our 
economic partnership, eliminate trade barriers to promote 
increased trade, and encourage investor-friendly practices.
    U.S. and Ecuadorian law enforcement and security personnel 
work cooperatively to counter regional threats posed by 
transnational crime, illicit narcotics, and trafficking in 
persons. Further cooperation and information sharing on these 
issues can result in greater security for citizens of both our 
countries.
    Additionally, our people-to-people exchanges are growing 
rapidly, with education partnerships leading more Americans and 
Ecuadorians to study in each other's country, thus supporting 
President Obama's 100,000 Strong Education Exchange Initiative. 
We are also responding to the Government of Ecuador's request 
for expanded cooperation in English-teaching with a variety of 
creative programs.
    This is a time of great dynamism in the Ecuadorian body 
politic. Ecuadorians of all backgrounds and beliefs are 
actively debating and expressing a range of views about the 
country's direction and future, demonstrable signs of that 
dynamism. Encouraging such expression, not limiting it, is 
consistent with the collective commitment to democratic values 
and human rights which the United States and Ecuador have both 
pledged to uphold.
    If confirmed, I will be a strong advocate for these 
democratic values as I engage with a broad range of 
Ecuadorians--within national and subnational governments, civil 
society, religious institutions, the media and the private 
sector--to promote social justice and greater prosperity for 
all Ecuadorians.
    Mr. Chairman, Mr. Ranking Member, committee members, if 
confirmed, I commit to doing my very best to represent the very 
best of the United States of America to the people and 
Government of Ecuador. I thank you for giving me the honor of 
appearing before you today. I look forward to your questions 
and the beginning of what I sincerely hope will be a continuing 
partnership and dialogue with this committee in the coming 
years. Thank you.
    [The prepared statement of Mr. Chapman follows:]

                   Prepared Statement of Todd Chapman

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for this privilege of appearing before you today.I 
am indeed grateful to President Obama and Secretary Kerry for the trust 
and confidence they have shown in me through this nomination to be the 
next United States Ambassador to the Republic of Ecuador.
    I would like first to publicly honor and express deep gratitude for 
my wife, Janetta, and my two sons, Joshua and Jason, who have 
faithfully supported me in this 25-year journey in the Foreign Service. 
They have shared in the joys, excitement, and sometimes the hardships, 
associated with this service and lifestyle. I also am so grateful for 
my parents, Marilyn and Bob Chapman, who were always my greatest 
champions and cheerleaders--I am blessed.
    During my career, I have represented our great Nation in a diverse 
group of countries, including Bolivia, Costa Rica, Nigeria, Mozambique, 
and Afghanistan. As an Economic Officer I promoted pro-growth economic 
policies, implemented development agendas, and advanced commercial 
partnerships. As Charge d'Affaires in Mozambique, I led our 
implementation of over $500 million in economic, health, and democracy 
programs. As Deputy Chief of Mission in Brasilia, Brazil, from 2011-
2014, I helped provide direction to one of our most dynamic bilateral 
relationships. And I now serve as Principal Deputy Assistant Secretary 
for the Bureau of Political-Military Affairs, enhancing security 
partnerships around the world through peacekeeping training, de-mining 
activities, defense trade, and security assistance.
    The United States has long recognized the value and importance of 
fostering a strong and productive relationship with Ecuador. The United 
States sent its first representative to Ecuador in 1825 when the U.S. 
Senate confirmed William Wheelwright to serve as U.S. consul in 
Guayaquil, Ecuador. In 1839 the United States and Ecuador signed a 
Treaty of Peace, Friendship, Navigation, and Commerce. Interestingly, 
whereas the commercial and navigation clauses were written to expire 
after 12 years, the treaty stated ``in all other parts which relate to 
peace and friendship, it shall be perpetually and permanently binding 
on both parties.'' If confirmed, I look forward to advancing in 
concrete ways the long diplomatic tradition of peace and friendship 
that has helped define relations between our two countries.
    I am confident that working in this spirit we can expand our 
relations and develop and more fully realize a constructive agenda 
which advances the real interests of our countries. There is much for 
our countries to do together.
    The United States has long been Ecuador's largest trading partner, 
with two-way trade approaching $20 billion in 2014, more than double 
2008 totals. I will work diligently, if confirmed, with the government 
and private sector to expand our economic partnership, eliminate trade 
barriers to promote increased trade, and encourage investor-friendly 
practices.
    U.S. and Ecuadorian law enforcement and security personnel work 
cooperatively to counter regional threats posed by transnational crime, 
illicit narcotics, and trafficking in persons. Further cooperation and 
information sharing on these issues can result in greater security for 
citizens of both countries.
    Additionally, our people-to-people exchanges are growing rapidly, 
with education partnerships leading more Americans and Ecuadorians to 
study in each other's country, thus supporting President Obama's 
100,000 Strong Education Exchange Initiative. We are also responding to 
the Government of Ecuador's request for expanded cooperation in 
English-teaching with a variety of creative programs.
    Tourism both ways is also rising quickly; over 200,000 Americans 
visited Ecuador last year while 335,000 Ecuadorians traveled to the 
United States.And the number of Americans residing in Ecuador is 
approaching 100,000, thanks in part to a growing number of retirees.
    This is a time of great dynamism in the Ecuadorian body politic. 
Ecuadorians of all backgrounds and beliefs are actively debating and 
expressing a range of views about the country's direction and future--
demonstrable signs of this dynamism. Encouraging such expression, not 
limiting it, is consistent with the collective commitment to democratic 
values and human rights which the United States and Ecuador have both 
pledged to uphold. If confirmed, I will be a strong advocate for these 
democratic values as I engage with a broad range of Ecuadorians--within 
national and subnational governments, civil society, religious 
institutions, the media and the private sector--to promote social 
justice and greater prosperity for all Ecuadorians.
    Mr. Chairman, committee members, if confirmed I commit to doing my 
very best to represent the very best of the United States of America to 
the people and Government of Ecuador. I thank you for giving me the 
honor of appearing before you today, and I look forward to your 
questions and the beginning of what I sincerely hope will be a 
continuing partnership and dialogue with this committee for several 
years to come. Thank you.

    The Chairman. We thank you all.
    Our ranking member I know is in line to speak in the 
Finance Committee, so I am going to defer to him. If no other 
members come in, I will then defer to Senator Menendez, who 
appropriately has placed a lot of emphasis on the geography 
that all of you represent.
    So, with that, we will start with our ranking member.
    Senator Cardin. And if I am correct, I think Senator 
Menendez should also go to the Senate Finance Committee 
sometime today on our international task force, but maybe not. 
I do not mean to speak for my colleague on the Finance 
Committee.
    First, thank you all very much for your service. As I said 
to the last panel, including this panel, we very much 
appreciate your public service, and thank your families because 
we know it is a family event.
    In our hemisphere, the countries that are represented here 
are all democratic countries in that they all have the 
institutions of democracy, and every one is challenged on human 
rights and freedom and all the things that we value. So there 
are issues. Just because it is a democratic country does not 
mean it does not have significant problems.
    So, Ms. Manes, let me start with El Salvador. You are 
correct that we have lots of Salvadorans in Maryland. They have 
contributed greatly to our State and to our Nation, a strong 
ethnic community and strongly engaged in the growth of America.
    There is an issue. I was in El Salvador not too long ago 
and experienced firsthand the way that gangs control the 
communities. I was in Honduras, saw the same thing there. The 
government is incapable of rooting out the gang activities 
which is corrupting their entire economy. To make matters 
worse, they are exporting that to my State of Maryland. We have 
Salvadoran gangs in Prince Georges County and in Montgomery 
County and other places in our state, not very far from here.
    So give me an idea about the priority you are going to 
place on dealing with the safety of the people of El Salvador. 
Their murder rates, of course, are the highest in the world. 
What are we going to do? What can the United States do to help 
in this regard?
    Ms. Manes. Well, I appreciate your question, and clearly 
security is the number-one issue. It cannot be divorced from 
economic development and governance, but it is clearly the top 
priority.
    I am pleased to say that the current government is 
committed to addressing the challenge. They have developed, in 
fact, a comprehensive Safe El Salvador, which really focuses on 
50 municipalities that are the most troubled. They are 
committed to establishing rule of law, police intervention at 
an early stage in 10 of those this first year.
    There are challenges. There are definitely challenges on 
whether they can take that to scale, and that is a real area 
for them to collaborate with the United States. We already have 
strong collaboration with El Salvador on rule of law, 
governance, police issues. We have over 15 agencies represented 
at the U.S. mission----
    Senator Cardin. And I have visited them----
    Ms. Manes. Yes.
    Senator Cardin [continuing]. And I am very impressed with 
their dedication. They are making great progress. I am 
impressed by the commitment of their government to the issues. 
It is just incredible, though, how that network is as strong as 
it is.
    Ms. Manes. It is incredible, but what they are doing in 
terms of doing a place-based strategy focusing on 10 priority 
municipalities in a comprehensive way, not just with adding 
more police officers but focusing on prevention, focusing on 
reintegration of gang members into society, those are really 
fundamental steps, and those are definite areas where we can 
work closely with El Salvador.
    Senator Cardin. And I just really want to underscore this 
point. We want to save the children there. We have had the 
immigration issues on our border, et cetera, but I met with a 
lot of really neat young people----
    Ms. Manes. Yes.
    Senator Cardin [continuing]. Who want to do well for their 
lives, and I am worried some, if not many of those, will get 
caught up in the violence of their neighborhood and never have 
a chance. So we are really talking about young people who are 
trapped in this web, and the United States offers an 
opportunity here, and your position in that country can make a 
huge difference. So I urge you to give this your highest 
priority.
    Ms. Manes. Absolutely. Thank you.
    Senator Cardin. If I could switch, I guess, to Panama, 
that's a little bit easier. Panama really needs to be a country 
where our presence is used to help the entire region. It has a 
lot of things going for it from the point of view of its 
economy and the canal, but it is in the neighborhood where they 
can exercise a lot of influence, and the question is will they 
exercise the influence and how will the United States play a 
role in that.
    Mr. Feeley. Thank you very much, Senator Cardin, for that 
question. You hit it right on the head. I agree with you 
completely. Panama is a country in Central America that, 
because of its geography, because of its history, and because 
of its current government, does not suffer from the same types 
of problems of citizen insecurity, shaken governance, and the 
gang problem that is so pervasive in the Northern Triangle.
    The United States has a very strong and capable partner in 
this current government. We do seek to use our collaboration 
with Panama to hopefully export it, so to speak, very much in 
the way we have with Colombia over many years. President Varela 
understands very well the threats that are to his geographic 
north and has expressed already through his leadership at the 
Summit of the Americas earlier this year and in a number of 
domestic programs his intention to continue collaborating with 
the United States and with all of the governments of the region 
to make sure that Panama becomes value added to the many 
problems that afflict the isthmus.
    Senator Cardin. Ecuador, we talked a little bit before we 
sat down, a great country, but has been characterized by 
Freedom House as having a press that is not free. We cannot 
accept that. What is your strategy to use the tools of our 
embassy to get a more open society and protecting journalists?
    Mr. Chapman. Thank you very much, Senator Cardin. I share 
your concern about freedom of the press in Ecuador. Freedom 
House report and many others have highlighted the challenges 
that a free and independent media have been facing in Ecuador 
in recent years.
    I think it is very important that we as a government and we 
as an embassy speak very forthrightly about the challenges that 
this presents, the creation of kind of open civil societies and 
governments that we seek to see in this hemisphere. We share a 
commitment through treaties and charters. The Inter American 
Democratic Charter is very clear on the importance of freedom 
of expression, and I think that if confirmed, I will, just like 
the gentleman who just left as Ambassador, Adam Nim, be an 
advocate and, quite frankly, a forthright advocate for these 
issues, demonstrating how free press is good for free 
societies.
    So I think it is incumbent on us as a government and as an 
embassy, as a mission, to be very, very outspoken on these 
issues and to support in any way that we can those who are 
seeking to express themselves freely within Ecuador.
    Senator Cardin. This committee is taking a particular 
interest in the trafficking issue. Several of the countries--
Antigua, Barbuda--Tier 2 watch. You mentioned that in your 
testimony. We have St. Vincent, a Tier 2 country. Trafficking 
is a serious problem, and I must tell you, we very much want 
our mission in the Caribbean Islands to give us a strong report 
on how we can hold these countries to making progress against 
modern-day slavery.
    We know at times you want to be diplomatic, but when you 
are dealing on this issue you have got to give us a clear 
indication of how this country is performing on its 
trafficking, anti-trafficking activities. Are you prepared to 
do that?
    Ms. Taglialatela. Thank you for that question, Senator. As 
a strong proponent of human rights and rule of law, I am 
concerned about trafficking of persons in the Caribbean. If 
confirmed, I will continue the robust engagement with the 
nations to encourage them to strengthen their antitrafficking 
laws and to improve their law enforcement efforts. I think it 
is important that we increase measures to protect and care for 
the victims and to try through a systemic approach to prevent 
people from becoming victims of trafficking.
    I understand and realize that two of our countries within 
the Caribbean are at Tier 2 Watch List. Those countries we will 
focus on, along with the other countries in the Caribbean, to 
make sure that they pay attention to the things that need to be 
done within their countries to stop trafficking in persons.
    Senator Cardin. I just want to make this point. I 
appreciate that answer. I just want to make this point. There 
are objective tests as to how we rate countries in our TIP 
report, and we expect our representatives from America in these 
countries to use those standards and their recommendations to 
the State Department through the ways that you go about doing 
that. This is not a matter to trade off for diplomacy. This is 
a matter in which we demand objective reporting as to a 
country's rating.
    Ms. Taglialatela. I assure you, Mr. Senator, that we will 
follow the standards of the report to evaluate and assess the 
actions of the countries within the Caribbean.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, and 
congratulations to all of you on your nominations.
    I thought I read this from your resumes, but I just want to 
make sure.
    Mr. Feeley, Ms. Manes, and Mr. Chapman, do you all speak 
Spanish? I know you do, right?
    Ms. Manes. Yes.
    Mr. Feeley. Yes, sir.
    Senator Menendez. Okay, great. I am not going to conduct a 
Cervantes test now. I just wanted to get a sense of it. It 
helps in the country that you are in, particularly these Latin 
American countries.
    Let me say that in reading your testimony, as well as 
listening to it, in typical State Department form, you have the 
most positive view of our bilateral relationships with these 
countries, and I get that. But in some of these countries we 
have some real concerns and issues, and I do not think we can 
gloss over them because, from my perspective, they need to be 
an essential part of your mission as the head of our embassy in 
these respective countries. So let me go over a few of them.
    Mr. Chapman, I certainly want to join Senator Cardin in his 
concern about press freedom in Ecuador. I have spoken about 
this for years, and it continues to be one of the most 
oppressed elements of freedom of the press in the hemisphere.
    But beyond that, President Carrera is a fierce critic of 
the United States. He has ejected State Department 
representatives. He has imposed such restrictions on USAID that 
it had to close its mission. He shut down U.S. counterdrug 
operations. He has accused the United States of threatening 
Ecuador's sovereignty. He has aligned Ecuador with allies like 
China and Russia, and he even provided asylum to WikiLeaks 
founder Julian Assange at the Embassy of Ecuador in London.
    So, while I heard the positive side of this bilateral 
relationship, I think that there is a very pressing series of 
things, and so I would like to get a sense from you, 
notwithstanding that President Carrera has supposedly announced 
that he will not stand for election in 2017--we will see--as 
his political party pushes for constitutional changes that 
allow indefinite reelection to take place, so we will see about 
that.
    How do you see this playing out? How do you see all of 
those elements of our relationship playing out? What do you 
intend to do as the ambassador in pursuing a better direction 
as it relates to those issues?
    Mr. Chapman. Thank you very much, Senator. It is a very 
good observation and listing of the real challenges that we 
also have in our relationship with Ecuador. We have many areas 
of substantive engagement where there has been positive 
movement, whether it is working in education areas or counter-
drug and some of the areas where we have seen some real 
progress at the working level.
    But you are right, there are many challenges in the 
relationship, and I certainly do not mean to gloss over them. I 
think what I would seek to do, if confirmed, is to seek to 
engage the Government of Ecuador on these issues in a 
substantive way to get beyond rhetoric and get to talking about 
the real issues that are of concern to both of our countries. 
We have signaled these on many occasions. We have had high-
level exchanges with the government at various times. I think 
this is an appropriate time for us to attempt to reengage on 
some of these issues that are so important to us.
    If confirmed, I would seek to find a willing and open 
interlocutor in Ecuador with whom we can discuss these issues 
and see if we can chart out a path together to address some of 
them together. But where we cannot, we will continue to not 
abandon our values and principles and speak out on the issues 
that are important to U.S. foreign policy and to us as a 
nation.
    Senator Menendez. I appreciate that. You know, as you go 
to--in 2017, if President Carrera is not going to run, for 
argument's sake, whether he runs or not, 2016 is a vital year 
leading up to 2017.
    Mr. Chapman. Yes, right.
    Senator Menendez. And so I would assume that it will be 
your mission to, beyond interlocutors at an intergovernmental 
level, to robustly pursue civil society elements in Ecuador in 
preparation for an election that we hope is free and fair.
    Mr. Chapman. Yes. Absolutely, Senator, I could not agree 
more. As I mentioned in my statement, I will be looking to meet 
with and hold dialogues with and learn from a very broad range 
of society. That includes opposition, that includes religious 
organizations, labor groups, indigenous movements. There are so 
many groups in Ecuador that are actively expressing themselves 
about what they wish to see as a nation, I think it is 
incumbent on us as diplomats to meet with each and every one to 
hear their concerns.
    And so, yes, I commit to you that I will be active, getting 
around the country, meeting with a broad, broad range of 
Ecuadorians so that we can see how we can work to support this 
democracy and this civil society as they seek to express 
themselves.
    Senator Menendez. Ms. Manes, I visited El Salvador a couple 
of years ago when I met with President Funes and the Minister 
of Foreign Affairs and the Minister of Justice, and in a very 
interesting luncheon that Ambassador Aponte arranged with me 
with members of the Constitutional Court of the Supreme Court, 
in essence the Supreme Court of Justice of their country, and 
the focus of a lot of my visit was, yes, our bilateral 
relationship, but particularly the question of extraditions. We 
had a series of fugitives and/or others wanted for high crimes 
in the United States, from drug trafficking to murders and 
others, and we had not succeeded in gaining extraditions.
    We had a long conversation with members of the Supreme 
Court about something that the ambassador had been working on 
to try to lay the foundation to get, and I had a long 
conversation with members of the Supreme Court, including the 
Chief Justice, who comes from a political point of view that 
did not necessarily warm to the idea of extraditions. And among 
the things that we discussed, I said what if a Salvadoran had 
committed murder against a member of your family and went to 
the United States? Would you not want them to be extradited 
back to El Salvador?
    Well, the result of that conversation and the continuing 
work of our ambassador led to a series of extraditions, 
extraditions we had never achieved before. Now, that still, 
however, is a contentious issue in El Salvador, and there are 
still those who are wanted by law enforcement authorities here 
in the United States.
    So I appreciate what you said about Ambassador Aponte. I 
want to get a pledge from you, if confirmed, that you will 
continue to aggressively pursue those who have committed crimes 
in the United States and pursue extradition when the 
appropriate State and Justice Department efforts go forth, that 
you will make that a priority of your time as Ambassador in El 
Salvador.
    Ms. Manes. Senator, you have my pledge, and I can assure 
you that while I am a glass-half-full person, I have no 
difficulty tackling the complicated issues and will do so.
    Senator Menendez. Okay. Well, I actually thought that your 
statement was among the most sobering of the countries that you 
were visiting.
    Let me ask you, the other thing with El Salvador which is, 
of course, part of our whole Central American challenge, 
Senator Cardin talked about it and it is a huge challenge, and 
I think we underestimate in the United States what that 
challenge is, and this is not about helping the people of El 
Salvador alone, it is about our own national interests and 
security. But also from that stems what we saw with refugee 
children, migrant children coming to the United States because 
their parents decide that either they will die here or I will 
risk them coming to the United States and hopefully they will 
live there.
    Now, that flow stemmed as a result of concerted effort 
between the United States and the governments of Central 
America, but I see the number spiking again. And before we get 
to a crisis situation where we will revert to what we did 
before--the whole region is not your bailiwick but your country 
is one of those--will you make it one of your priorities when 
you are at post to continue to work with the Salvadoran 
government on finding ways in which we stem the tide of young 
children taking a risk to come to the United States and pursue 
the more active in-country asylum process that we have tried to 
establish?
    Ms. Manes. Well, Senator, thank you for that question. You 
make the exact point. The fundamental issues that have led to 
the migration crisis have not changed. In fact, the number is 
going back up. Fundamentally, probably the number went down a 
little bit because of our collaboration in the region, in 
particular with Mexico, so less were actually reaching the 
United States. But the number of people who were actually 
departing El Salvador probably did not go down.
    So the fundamental underlying issues, predominantly 
security, and the research does show that the number-one reason 
people are willing to take that risk with their most precious 
assets, their kids, the fundamental reason is, in fact, the 
security issues. Economics is a distant second.
    So it is critical that we get a handle on the security 
situation in El Salvador not only for the security of El 
Salvador, as you rightly point out, but for the security of the 
United States, and that will be my number-one top priority if 
confirmed.
    Senator Menendez. Well, thank you very much.
    Mr. Feeley, while Panama is virtuous in many ways, it does 
have a few issues. Money laundering. Panama made some moves in 
order to get itself removed from the international list of 
nations that are not doing enough to fight money laundering, 
but these efforts are falling short, in my view. The gray list 
is maintained by the Financial Action Task Force, an 
intergovernmental body that promotes anti-money-laundering 
policies. Panama has been on the list since June of 2014, 
alongside other countries like Afghanistan, Sudan, Syria. That 
is not great company.
    Panama developed an action plan with the task force in 
order to remove this designation, which included a legislative 
proposal meant to strengthen government supervision over the 
financial sector. However, talks between the task force and 
Panama have run into trouble lately. Problems include the ease 
with which corporations are formed, confidentiality regulations 
that make it easy for corporations to conceal details, minimum 
reporting requirements, tax exemptions, lax regulations over 
the shipping industry, which is another concern of mine, and an 
insufficient legal framework for dealing with money laundering.
    Do you plan to make this a significant issue of your 
ambassadorship?
    Mr. Feeley. Absolutely, Senator Menendez. You accurately 
described the situation in Panama right now. You mentioned the 
gray list, the engagement with Panama. In my current position 
as Principal Deputy Assistant Secretary, without necessarily 
portfolio review for Panama, I have engaged with the Ambassador 
here, with the President and Foreign Minister, Vice President 
and Foreign Minister in Panama. I believe that they recognize 
just how important it is that they work with the international 
community, with the U.N., with the United States to clean up 
their banking sector so that their banking sector becomes a 
proponent for legitimate business and it is not subject to the 
bridging function I spoke about earlier, that many times, 
unfortunately, invites organized crime.
    So if I am confirmed, Senator, you have my pledge that this 
will be one of my highest priorities.
    Senator Menendez. Mr. Chairman, I have one other question, 
if I may?
    The Chairman. Go ahead.
    Senator Menendez. With reference to--because of its 
location, Panama remains a center for shipping narcotics to the 
United States and other countries. What is your assessment of 
the progress with Panama, and is the drug interdiction 
committee working? What do we need to do?
    Mr. Feeley. Absolutely. Thank you for that question, 
Senator Menendez. Panama is a good partner for the United 
States. Panama last year seized over 35,000 tons of cocaine, 
more than all of the other countries of Central America and 
Mexico combined. As an interdictor, it does quite a good job, 
and one of the reasons for that job is its consistent 
partnership with the United States under the Central American 
Regional Security Initiative.
    Where it has not worked and where we have seen deficits in 
Panama's performance is precisely where we discussed earlier, 
in the financial transactions. If confirmed, I will ensure that 
we continue to work with the Sinan and Sena Front. As you know, 
there is no military in Panama, but the police and the security 
agencies, they guard the borders, and their air naval service 
to ensure that that interdiction level is kept up, that their 
vetted units are trained professionally by our DEA and our 
folks. But also we will turn increasing attention to the 
financial sector, sir.
    Senator Menendez. Well, thank you very much.
    Just one last comment to the three of you. Other than 
Senator Cardin's remarks about trafficking--that is why I did 
not spend a lot of time with you, Ms. Taglialatela, but I am 
sure that you will do a fine job there--I sometimes worry that 
in these countries, while we say that we promote our values, we 
muff it. I think that the purpose of our interests--yes, 
sometimes they are clearly commercial, but what makes America a 
beacon of light unto the world is what it stands for in human 
rights and democracy. And when we do not show that beacon in 
these countries that you are going to all represent, because 
the country that you are going to represent is the United 
States of America, the country you are going to be assigned to, 
then I think we do ourselves an enormous disservice.
    Now, that sometimes creates problems. Maybe, Mr. Chapman, 
you might get thrown out of Ecuador for doing it, but I would 
applaud you. Maybe Ms. Manes would find challenges--I do not 
think so--in raising some of the questions, justice questions 
in that country, or the questions of money laundering in that 
country. But that is the very essence of why we have missions 
abroad, to promote those values.
    So I just want to urge you--it is a refrain that I intend 
to make to each one of our nominees as you move abroad, because 
I often feel that we muff our concern about human rights and 
democracy. We say they are principles for us, but then we give 
them second or third billing as it relates to our missions 
abroad. So when I go to visit you, I will be looking forward to 
seeing what you have done in that regard.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I appreciate the fact that we have four qualified nominees 
nominated to positions that are very important to us here in 
the Western Hemisphere. I sometimes think there is not near the 
emphasis on the Western Hemisphere that should exist. There are 
tremendous challenges that we have there, but also significant 
opportunities.
    Members of the committee will ask questions in writing 
through Thursday close of business. I am going to ask my 
questions through QFRs in that manner because of the time, but 
I want to thank you for your testimony here today, for bringing 
family members and for their service to our country in support 
of you and in other ways.
    And with that, the meeting is adjourned.
    Thank you.
    [Whereupon, at 4:12 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted For The Record


  Responses of Amos Hochstein, Nominated to be Assistant Secretary of 
 State for Energy Resources, to Questions from Members of the Committee

               assistant-secretary-designate hochstein's 
              responses to questions from senator barrasso
    Question. How are the roles and responsibilities of the State 
Department's Bureau of Energy Resources different from the Department 
of Energy's Office of Policy and International Affairs?

    Answer. The State Department's Bureau of Energy Resources (ENR) and 
the Department of Energy's (DOE) Office of Policy and International 
Affairs have different but very complementary mandates. The Department 
of Energy Organization Act, which established the Energy Department in 
1977, expressly gives the Secretary of State primary authority and the 
central role in conducting international energy policy, stating that 
``the Secretary of State shall continue to exercise primary authority 
for the conduct of foreign policy relating to energy and nuclear 
nonproliferation, pursuant to policy guidelines established by the 
President'' (42 U.S. C Sec. 7112 (10)). ENR works closely and 
collaboratively with DOE's Office of Policy and International Affairs, 
but leads the effort where energy intersects with our foreign policy, 
national security, and counterterrorism objectives. The vital link 
between energy security and every nation's national security has never 
been more clear than it is today. Access to reliable, affordable and 
sustainable energy affects every country's economic growth, political 
stability and ability to meet its climate goals. With rapidly changing 
natural gas markets, shifts in global supply, the transformative impact 
of renewable energy technologies, and the explosion of energy 
consumption in the developing world in an era of climate change, energy 
diplomacy is fundamental to U.S. diplomatic engagement everywhere.
    As we work to address global energy challenges, ENR engages closely 
with DOE's Office of Policy and International Affairs to coordinate 
U.S. bilateral and multilateral foreign policy engagement on energy 
issues. ENR's diplomacy efforts amplify DOE's technical expertise with 
the geopolitical and diplomatic tools that leverage our bilateral and 
international strengths to achieve lasting solutions.
    ENR, in coordination with the interagency, develops U.S. 
international energy policy, ensures that analyses of the national 
security implications of global energy and environmental developments 
are reflected in the interagency decision making process within the 
executive branch, and coordinates energy activities of the Department 
of State with relevant Federal agencies in line with the Energy 
Independence and Security Act of 2007.

    Question. Please describe how you have delineated the roles, lines 
of authorities, and decisionmaking among the Department of State, 
Department of Treasury, the Department of Energy, and the White House 
on international energy policies?

    Answer. As determined by Congress, the Department of State has the 
lead on all areas of international energy diplomacy. As such, the State 
Department's Bureau of Energy Resources leads the effort where energy 
intersects with our foreign policy, national security, and 
counterterrorism objectives.
    For example, the Department of State leads on Iran and Russia 
sanctions, counter-ISIL efforts, Ukraine and European energy security, 
and cooperation in the Eastern Mediterranean, among other issues.
    We work closely and collaboratively with the White House, 
Department of Defense, the Department of the Treasury, and the 
Department of Energy to ensure collaboration, cooperation, and avoid 
duplication of efforts. The Department of Energy's technical and 
scientific expertise is an important asset to energy diplomacy and the 
Department of State utilizes that expertise in its international 
engagements.
    We maintain regular meetings, weekly calls through the White House, 
and bilateral meetings with relevant government agencies, which helps 
us to delineate our individual roles and lines of authority.

    Question. In examining energy markets, how will the Bureau of 
Energy Resources avoid duplicating the efforts of other parts of the 
government?

    Answer. In examining markets, ENR utilizes the great expertise 
developed by the Department of Energy, the U.S. Energy Information 
Administration, the intelligence community, the Department of Commerce 
and others to support our own analysis and information derived from the 
Bureau's unique exposure to U.S. Government resources, as well as 
active engagement with international counterparts. These include 
governments, think tanks, multilateral institutions, and the private 
sector.

    Question. What is the current number of staff positions at the 
Bureau of Energy Resources? What was the fiscal year 2015 budget for 
the Bureau of Energy Resources?

    Answer. The Bureau of Energy Resources currently has 68 permanent 
Full Time Equivalent (FTE) staff and 9 temporary positions.
    The Bureau in FY 2015 managed a budget of $4.394 million, 
approximately 10 percent lower than the Bureau's FY 2012 managed levels 
of $4.820 million.

    Question. In your testimony, you wrote: ``Today, we should focus on 
21st century solutions utilizing ALL natural resources--from those 
requiring extraction to those requiring capturing; from oil and gas to 
wind and sun.''

  <diamond> Are you committed to promoting all forms of energy projects 
        across the globe including oil, gas, and coal?

    Answer. Yes, I support promoting all forms of energy globally, 
consistent with the Department and administration's efforts to promote 
energy security and economic development. Recognizing that countries 
will pursue their own mix of energy options according to their unique 
circumstances, our approach is to support a menu of available energy 
options, from hydrocarbon to renewable technologies.
    The Bureau of Energy Resources (ENR) supports the responsible 
development of hydrocarbon resources globally through several different 
channels. We are prioritizing the increase of gas supply 
diversification to Western Europe and are working to better integrate 
gas markets and supplies across geographic regions. Globally, through 
the Energy Governance and Capacity Initiative (EGCI), ENR assists 
countries with emerging or rapidly expanding oil and gas sectors on 
sustainable and transparent sector management to benefit national 
economic development. Through the Unconventional Gas Technical 
Engagement Program (UGTEP), ENR assists countries seeking to develop 
their unconventional natural gas resources safely and responsibly.
    At the same time, ENR has coordinated with other U.S. Government 
agencies to advance the construction of new coal plants by U.S. 
companies in Kosovo, and the export of U.S. equipment for coal mining 
in Mongolia. ENR also works closely with Ukraine to ensure it has 
access to adequate coal supplies.
    When leading U.S. Government energy diplomacy to address 
geopolitical energy crises, ENR works to advance diversification of 
energy supply sources, transmission routes, and fuel types. In 
addition, ENR facilitates regional energy resource cooperation by 
encouraging regional partners to utilize shared hydrocarbon and 
renewable resources as a vehicle for resolving long-standing 
disagreements and bolstering regional cooperation and interconnection.
    We routinely meet with representatives of industry from the entire 
spectrum of energy sources, to better understand their views on 
opportunities and challenges and to inform our diplomatic outreach.

    Question. What percentage of the Bureau's time, resources, and 
budget went toward traditional energy resources of oil, gas, and coal 
during fiscal year 2015? What percentage of the Bureau's time, 
resources, and budget went toward wind and solar energy in fiscal year 
2015?

    Answer. ENR allocates its staff time and resources to advance our 
interests in having access to secure and reliable sources of energy. 
These sources of energy include traditional hydrocarbon resources as 
the majority of generation and alternative and renewable energy sources 
to help develop a sustainable 21st century modern energy matrix. The 
percentages vary given the issue, the country, and environment. In FY 
2015, a significant portion of the Bureau's time went to promoting 
energy security globally, which included promoting traditional and 
renewable energy sources, increasing regional integration, and 
increasing access to energy.
    This resource allocation is also true of the program funds that 
operationalize our energy diplomacy. Approximately 57 percent of 
foreign assistance funds obligated in FY 2015 worked to bring 
transparency and good governance to the oil and gas sectors to 
strengthen energy security and economic growth. Initiatives included 
helping to increase Ukrainian domestic gas production and assisting 
countries like Jordan in responsibly developing its unconventional 
shale gas resource potential. Approximately 43 percent of foreign 
assistance funds obligated in FY 2015 went toward power sector and 
other activities, including natural gas and renewable sources such as 
wind, solar, and geothermal, that are generation-neutral, to bring 
solvency to power sectors and interconnect countries across borders to 
strengthen energy security and regional cooperation. These programs 
help increase Southern African power sector investment and accelerate 
the extension of energy access to those currently without it. They also 
help develop regulations and technical capacity in Central America to 
support regional power integration and facilitate the introduction of 
electricity and gas from Mexico into Central America.

    Question. What action has the Bureau of Energy Resources taken on 
coal in bilateral relationships, in multilateral institutions, and by 
U.S. export financing agencies in fiscal year 2015?

    Answer. The Bureau of Energy Resources (ENR) meets with U.S. energy 
firms representing the entire spectrum of energy resources, including 
U.S. coal companies seeking to assist developing countries to utilize 
modern coal technologies and practices. These discussions inform our 
diplomatic engagement.
    Within the State Department, the Bureau of Economic and Business 
Affairs (EB) has primary responsibility for economic negotiations with 
multilateral financial and development institutions, including on the 
issue of financing coal-fired power projects. On these issues ENR has 
served as a technical resource to EB, providing information on the 
carbon content, emissions rates, and technical maturity of various 
types of energy resources and power generating technologies.
    ENR has had no active role in development of U.S. export financing 
agencies' policies on coal.

    Question. Do you believe that lifting the restrictions on exports 
of liquefied natural gas and crude oil from the United States would 
promote U.S. national interests and energy security of our allies? 
Please explain.

    Answer. Oil is a global commodity. Natural gas is increasingly 
becoming a global commodity. Any supply disruption will increase global 
prices and the price we pay for energy at home. Disruptions would also 
undermine the economies and well-being of countries around the world, 
and thereby have a direct impact on the prosperity of Americans as 
well. As you know, current law prohibits most crude oil exports and any 
change would require congressional action. Domestic oil production has 
grown significantly in recent years, and that is a good thing. Since 
2008, U.S. net crude oil imports have fallen by 3 million barrels per 
day as a result of growing domestic production and improving energy 
efficiency. This, in turn, has diverted previously imported barrels 
back into the global market which enhances global energy security and 
strengthens the global economy. We want to work together with Congress 
to focus on meeting America's energy needs and ensuring that American 
energy remains a key player in the global energy markets.
    I support LNG exports and the Department of Energy (DOE) has 
regulatory authority over permits for Liquefied Natural Gas (LNG) 
exports and has approved LNG export permits for nearly 10 billion cubic 
feet per day (or more than 100 billion cubic meters a year) that can be 
exported both to countries with which we have Free Trade Agreements 
(FTA) and to those where we do not, such as European countries and 
Japan. The United States is poised to become a significant exporter of 
LNG. U.S. exports have the potential to bolster global gas supplies and 
add liquidity and flexibility to markets, thereby enhancing global 
energy security. U.S. LNG exports will benefit priority foreign policy 
interests including European energy security and fostering economic 
growth in the Asia-Pacific to help meet the region's rapidly growing 
energy demands.

    Question. Do you support the Bureau of Energy Resources promoting 
export opportunities for U.S. natural gas, oil, and coal? What is your 
strategy to help U.S. energy companies create export opportunities for 
coal, oil, and natural gas? How would the Bureau of Energy Resources 
work with the Department of Commerce, Energy, and the Environmental 
Protection Agencies to support these opportunities?

    Answer. Yes. One of ENR's primary objectives is to support U.S. 
exports in the energy sector, including hydrocarbons, nuclear, and 
renewables.
    ENR has supported and will continue to support American companies 
seeking opportunities across the globe. ENR has successfully advocated 
on behalf of U.S. companies and opportunities in every segment of the 
energy sector.
    The Bureau coordinates across the entirety of the interagency to 
ensure maximum effect for our advocacy and support on behalf of U.S. 
companies, as well as to ensure it is done properly and transparently.

    Question. Do you support multilateral institutions blocking 
financing for coal powered energy projects? If you do, why is it good 
U.S. policy to block financing for affordable, accessible, and reliable 
energy projects?

    Answer. The Bureau of Energy Resources (ENR) has supported efforts 
to promote energy security globally by helping other nations modernize 
power production, distribution and use according to each country's 
unique circumstances.
    ENR has coordinated with other U.S. Government agencies to advance 
the construction of new coal plants by U.S. companies in Kosovo, and 
the export of U.S. equipment for coal mining in Mongolia and Ukraine. 
These actions are in line with the administration's Climate Action 
Plan, which allows public financing of coal plants in the world's 
poorest countries in cases where no other economically feasible 
alternative exists.

    Question. What specific steps has the Bureau of Energy Resources 
taken to advocate that multilateral financial institutions and other 
multilateral development institutions change their energy sector 
financing to block coal-fired power projects?

    Answer. The Bureau of Energy Resources (ENR) supports promoting all 
forms of energy projects globally consistent with the Department and 
administration's efforts to promote energy security and economic 
development. Our approach, in bilateral engagements and through 
multilateral financial and development institutions, is to maximize the 
technical and financial analysis of available energy options as each 
country pursues its own resource and technology mix according to its 
unique circumstances.
    Within the State Department, the Bureau of Economic and Business 
Affairs has primary responsibility for economic negotiations with 
multilateral financial and development institutions, including on the 
issue of financing coal-fired power projects. On these issues the 
Bureau of Energy Resources has served as a technical resource to the 
Economics Bureau, providing information on the carbon content, 
emissions rates, and technical maturity of various types of energy 
resources and power generating technologies. Recently, the Department 
was able to reach an agreement on export financing for coal-fired power 
plant technologies at the Organization for Economic Co-operation and 
Development (OECD) that will help level the playing field for U.S. 
manufacturing companies in the energy sector.
    At the same time, ENR has coordinated with other U.S. Government 
agencies to advance the construction of new coal plants by U.S. 
companies in Kosovo, and the export of U.S. equipment for coal mining 
in Mongolia. ENR also continues to assist Ukraine to ensure it has 
access to sufficient supply of coal.

    Question. Please outline the roles and lines of authority among the 
Department of State, Department of Treasury, the White House, the 
Department of Energy, the U.S. Executive Director's Office at the World 
Bank, and other financial institutions regarding multilateral energy 
investments.

    Answer. The President has delegated to the Secretary of the U.S. 
Department of Treasury (Treasury) principal responsibility for 
instructing the U.S. Executive Directors to the International Financial 
Institutions (IFI) on the positions and votes of the United States with 
respect to IFI decisions. Treasury solicits views on proposed 
Multilateral Development Bank (MDB) investments from the U.S. 
Department of State (State) and other U.S. agencies, including the U.S. 
Department of Energy, through its Working Group on Multilateral 
Assistance (WGMA). The Under Secretary of State for Economic Affairs 
serves as alternate U.S. Governor at each MDB. State's Economic and 
Business Affairs Bureau coordinates the Department's input on MDB 
issues and energy investments in cooperation with other State 
Department bureaus.

    Question. If sanctions are lifted, how quickly could Iran manage to 
ramp up its production of oil? What is the estimated revenue per year 
to Iran from lifting of sanctions on Iran's energy sector? Have you 
done any economic modeling or analysis on the total economic benefits 
to the Iranian economy due to the lifting of the sanctions?

    Answer. Should sanctions be lifted, it is possible to estimate 
increases in exports would come in stages over time. I am available to 
brief in more detail in a classified setting.
    Iran's economy has been isolated from the world since more robust 
sanctions were imposed on Iran's energy sector in 2012. It will take 
significant time for Iranian production to reach sustained, higher 
levels once the sanctions relief described in the Joint Comprehensive 
Plan of Action goes into effect. The Treasury Department estimates that 
today, the Iranian economy is at most only 80 percent the size that it 
would have been, had it continued on its pre-2012 growth path. 
Consequently, it will take until at least until 2022 based on Iran's 
anemic economic performance--even with sanctions relief--for Iran to 
get back to where it would have been absent our sanctions. Iran has 
foregone approximately $160 billion in oil revenue alone since 2012, 
after our sanctions reduced Iran's oil exports by 60 percent. This 
money is lost and cannot be recovered.
    In order to increase production and exports, Iran will need access 
to foreign technology and capital. In order to attract such investment, 
Iran will have to make significant improvements to its investment 
climate. Even so, it will be difficult if not impossible for Iran to 
return to pre-1979 production levels of 6 million barrels per day.
    On the question of economic analysis and modeling, I refer you to 
the U.S. Department of the Treasury, and the intelligence community for 
further analysis and information on Iran's economy.

    Question. What advice would you give international energy companies 
that are considering new investments in the Iranian energy sector now 
and after the current energy sanctions on Iran are lifted?

    Answer. We have and will continue to urge international energy 
companies to seek expert guidance before signing any contract or 
beginning a formal business relationship involving Iran. In addition, 
we urge such companies to bear in mind that all U.S. sanctions related 
to Iran for nonnuclear reasons remain in place and will continue to 
remain in place even after ``Implementation Day,'' which will occur 
only after the International Atomic Energy Agency (IAEA) verifies that 
Iran has taken key nuclear-related steps, after which the United States 
and the EU will provide relief from certain nuclear-related sanctions 
under the terms specified in the JCPOA.
    We strongly urge any country, company, or individual interested in 
doing future business with Iran to consult published guidance and 
expert counsel; companies requiring further clarification may bring 
questions to the Treasury Department's Office of Foreign Asset Control 
to obtain further guidance.

    Question. If Iran violates the JCPOA and sanctions are reimposed, 
is it your understanding that foreign energy companies would be 
required to cease performance of any contracts with Iran?

    Answer. There is no provision in the JCPOA that grandfathers 
contracts signed prior to snapback. We are committed to ensuring that 
Iran complies with all of its commitments, and we have a wide range of 
options to respond to any Iranian noncompliance, from significant 
nonperformance to more minor instances of noncompliance.
    If given instruction for the snapback of oil-related sanctions, I 
am confident we will be able to implement those sanctions without 
delay.

    Question. If you become aware of an energy company that is 
violating U.S. sanctions, including a company with significant ties to 
the U.S., would you have any hesitation to recommend sanctions on that 
company?

    Answer. Prior to sanctions implementation in 2012, Iran had more 
than 20 customers and exported approximately 2.5 million barrels per 
day. ENR's efforts shrank Iran's customers from 20 to 6, and reduced 
exports from 2.5 million barrels per day to just 1 million. We achieved 
this without disrupting global oil supplies or price. This 
unprecedented effort cut Iranian revenues by over $150 billion, and 
played a key role in forcing them to the negotiating table.
    Our sanctions against Iran have been, and will continue to be, a 
powerful tool. We know that sanctions are only effective when they are 
strictly enforced. The entire State Department is, and will continue to 
be, committed to vigorous enforcement of any violations.

    Question. If you become aware of a sanctions violation, to which 
the administration is failing to respond, will you promptly notify this 
committee?

    Answer. Our sanctions against Iran have been, and will continue to 
be, a powerful tool. We know that sanctions are only effective when 
they are strictly enforced. The entire State Department is, and will 
continue to be, committed to vigorous enforcement of any violations. We 
will use all the tools at our disposal to ensure Iran fulfills its 
obligations under the JCPOA.
    Should I become aware of sanctions violations, I will report them 
diligently and appropriately.

    Question. How long would it take to effectively reimpose snapback 
sanctions against Iran in the energy sector?

    Answer. The United States has the ability to act very quickly to 
reimpose both unilateral and multilateral nuclear-related sanctions in 
the event of nonperformance by Iran. This includes the U.S. measures 
that impose sanctions on the purchasers of Iranian oil as well as the 
banks that finance those purchases. In the case of United Nations 
(U.N.) sanctions, U.N. Security Council Resolution 2231 establishes an 
unprecedented ``snapback'' mechanism under which any JCPOA participant 
has the unilateral ability to reimpose U.N. sanctions without the worry 
of a veto by any of the permanent members of the U.N. Security Council. 
Instead, there would be a vote in the Security Council to continue the 
sanctions relief, which we could veto, thereby resulting in the 
reimposition of all U.N. sanctions.
    In addition, the EU also has the ability to reimpose all of its 
sanctions in the event of noncompliance, including its embargo on 
Iranian oil, which has been one of the most powerful sanctions on Iran. 
Just as was the case in the past, we anticipate that should Iran be in 
noncompliance with this deal, we would have strong support from the EU 
and other countries to reimpose and vigorously enforce these sanctions.

    Question. Do you believe the United States should allow Iran to 
increase exports of oil while prohibiting U.S. companies and producers 
from accessing those same markets?

    Answer. When the International Atomic Energy Agency (IAEA) verifies 
that Iran has taken key nuclear-related steps, the United States and 
the EU have committed to provide relief from certain nuclear-related 
sanctions under the terms specified in the Joint Comprehensive Plan of 
Action (JCPOA) agreement reached in July by the P5+1--the United 
States, China, France, Russia, and the U.K., plus Germany, coordinated 
by the EU--and Iran. The JCPOA is designed to expand the scope of 
permissible business activity through sanctions relief in exchange for 
Iran's full compliance with the requirements of the JCPOA.
    We look forward to and hope for full compliance and the lifting of 
these sanctions as specified in the JCPOA when the IAEA verifies Iran's 
compliance on ``Implementation Day.'' However, U.S. sanctions targeting 
Iran's support for terrorism, human rights abuses, and destabilizing 
activities in the region, as well as its ballistic missiles program, 
will remain in place even under the JCPOA and will be enforced 
vigorously.
    Current law prohibits most crude oil exports and any change would 
require congressional action. We want to work together with Congress to 
focus on meeting America's energy needs and ensuring that American 
energy remains a key player in the global energy markets.

    Question. Do you believe it is in U.S. national security interest 
to allow U.S. allies and partners to purchase American oil to diversify 
away from Iran?

    Answer. Oil is a global commodity. Additional oil supplies from any 
nation coming on to global markets enhance the ability of any consuming 
nation, including our allies and partners, to increase its diversity of 
sources of oil supply. The United States maintains a long-standing 
policy to promote diversification of energy sources, types, and 
delivery routes as an essential component of energy security.
    Current law prohibits most crude oil exports and any change would 
require congressional action. We want to work together with Congress to 
focus on meeting America's energy needs and ensuring that American 
energy remains a key player in the global energy markets.

    Question. How could U.S. exports of crude oil help counter any 
benefits Iran receives from lifting of U.S. sanctions on Iran's energy 
sector?

    Answer. Current law prohibits most crude oil exports and any change 
would require congressional action. While we look forward to and hope 
for Iran's full JCPOA compliance as verified by the IAEA, the 
subsequent lifting of the nuclear proliferation related sanctions 
specified in the JCPOA and additional oil supplies coming onto global 
markets will face market forces, such as the balance between supply and 
demand, which will determine its price.
    We want to work together with Congress to focus on meeting 
America's energy needs and ensuring that American energy remains a key 
player in the global energy markets. U.S. sanctions targeting Iran's 
support for terrorism, human rights abuses, and destabilizing 
activities in the region, as well as its ballistic missiles program, 
will remain in place even under the JCPOA and will be enforced 
vigorously.

    Question. The State Department plays a role in analyzing and 
issuing Presidential permits for cross-border oil pipelines. The 
Secretary of State recently made the determination that the national 
interests of the United States would be best served by denying 
TransCanada a Presidential permit for the Keystone XL Pipeline.

  <diamond> Did you participate in the Keystone XL pipeline application 
        review? If so, what was your recommendation on the pipeline 
        application?

    Answer. ENR is one of multiple bureaus responsible for implementing 
E.O. 13337 in the Department. ENR's market analysis findings were 
incorporated into the broader National Interest Determination/Record of 
Decision and found the proposed project would have had a limited 
benefit for U.S. energy security by providing additional infrastructure 
for the dependable supply of crude oil. However, the absence of the 
proposed Project will not prevent Canada from continuing to serve as a 
secure source of energy supply.

    Question. What role, if any, did the Bureau of Energy Resources 
have with respect to the State Department's review of the Keystone XL 
pipeline application? What was the Bureau's recommendation?

    Answer. ENR is one of multiple Bureaus responsible for implementing 
E.O. 13337 in the Department of State. ENR solicited public comment and 
helped amalgamate the analysis from across the Department and the 
interagency for the National Interest Determination/Record of Decision 
for the Secretary's consideration in making his decision.
    ENR focused its role and analysis on the market affects as well as 
transportation alternatives.

    Question. In your opinion, how does the construction of oil sands 
pipelines impact U.S. national security and energy security?

    Answer. Canada serves as a secure source of oil which enhances U.S. 
energy and national security. Oil trade is driven by commercial 
considerations and occurs in the context of a globally traded market in 
which crude oil and products are relatively fungible. Ultimately Canada 
and global market forces will determine the development of the Western 
Canadian Sedimentary Basin.

    Question. What percentage of the Bureau's time, resources, and 
budget goes toward this effort?

    Answer. ENR allocates its staff time and resources to respond to 
the world as it is, with traditional hydrocarbon resources as the 
majority of generation, and to help transform the global energy 
picture--including cleaner burning natural gas, alternative and 
renewable sources, and achieving efficiencies in energy and power 
sectors.
    The Bureau's work in driving private demand and finance for 
transforming the ways all nations use and produce energy, including 
low-emission technologies and fuels, is a part of this effort, and one 
that has myriad benefits for U.S. citizens and companies, many of which 
are global leaders in clean energy technologies. The market rationale 
for renewable energy generation and energy efficiency initiatives as 
part of a reliable and sustainable energy supply is growing, and will 
be an essential component of 21st century energy security and 
independence; in many ways the net climate effects are simply 
cobenefits that augment those market realities. In FY 2015, a 
significant portion of the Bureau's time went to promoting both 
traditional and renewable energy sources, increasing access to energy, 
and stimulating private demand and finance for technologies and fuels 
that will transform the ways nations use and produce energy and stop or 
mitigate the devastating effects of climate change.

    Question. What actions is the Bureau taking to stop or mitigate 
climate change?

    Answer. At the core of ENR's mission is increasing the security of 
energy supply around the world. For electricity, the most economic 
options are increasingly also the least carbon emitting. Through ENR's 
diplomatic engagements, we promote options to improve energy security 
and reliability in the most economically and technologically viable 
way, while encouraging greater trade opportunities. We advance policies 
that support stable, affordable access to energy resources ranging from 
fossil fuels to renewables, depending on the local conditions and 
available energy resources. ENR does not apply a climate change litmus 
test for its engagements with partner countries. Rather, ENR promotes 
energy security, trade, and proper governance around the world through 
encouraging the most economically and technologically viable resources.
    The Special Envoy for Climate Change manages the State Department's 
diplomatic engagements related to climate negotiations.

    Question. Will international climate change be a top priority of 
the Bureau of Energy Resources under your leadership?

    Answer. The Special Envoy for Climate Change has primary 
responsibility for climate negotiations.
    The Bureau of Energy Resources' (ENR) top priority is the 
advancement of U.S. energy security and U.S. economic interests through 
increasing global access to secure, reliable, and diverse sources of 
energy. ENR works to ensure energy security by leveraging and promoting 
21st century energy solutions that employ all forms of natural 
resources--from utilizing fossil fuel resources in an effective manner 
to enhancing nuclear power opportunities to supporting renewable power 
generation. Through this lens, ENR continues to analyze rapidly 
changing energy markets and politics, encourages stable investment 
environments, and promotes innovation and trade.

    Question. How can U.S. energy exports, such as liquefied natural 
gas and crude oil, help promote regional energy security and economic 
development in the Western Hemisphere?

    Answer. The United States is already a significant energy supplier 
to the Western Hemisphere. Reflecting a steady trend, in September 
2015, 58 percent of total U.S. exports of refined products went to 
Western Hemisphere destinations, and nearly one quarter went to Canada 
and Mexico.
    As Mexico establishes the policies and regulations that shape its 
flagship energy reform, it is counting on significant increases in U.S. 
natural gas to accommodate new electricity generation and switch 
inefficient and costly heavy fuel oil plants to natural gas. We have 
engaged the Mexican Government extensively on this topic, and have 
provided technical and diplomatic support on a regional proposal to 
export North American gas from Mexico into Central America.
    The domestic shale gas boom has put the United States in a position 
to be a net natural gas exporter by 2017. Low natural gas prices and 
the capacity to export that surplus to markets provide a great 
opportunity to strengthen energy security and promote economic 
development in the Western Hemisphere. But while having strong and 
reliable energy suppliers can help, the primary challenge of energy 
security in most countries in the Western Hemisphere is not a lack of 
supply. For example, a number of countries in the Caribbean and Central 
America suffer from poor investment climates due to their small 
economies of scale, poor investment grades, and outmoded 
infrastructure. This results in an inability to attract the investment 
necessary to build energy infrastructure and supply power for their 
citizens that is reliable and affordable.
    The Bureau of Energy Resources, in collaboration with the Bureau of 
Western Hemisphere Affairs, is working to change this paradigm. In the 
Caribbean, under the Caribbean Energy Security Initiative (CESI), we 
are in collaboration with the many donors active in the region (the 
World Bank, Inter-American Development Bank, the European Union, and 
other national donors) to stimulate the kind of sectoral reform that 
creates lasting change. This includes work with the Inter-American 
Development Bank and the Department of Energy to explore options that 
could make liquefied natural gas--especially from the United States--a 
viable option for the larger Caribbean islands. This work makes it 
clear that the Caribbean has the opportunity to create a robust natural 
gas market if it establishes strong and transparent regulatory 
frameworks and works together as a region. For the Caribbean, regional 
economic integration is a significant geopolitical challenge and 
requires sustained engagement by regional governments and the 
international community.

    Question. What activities is the Bureau of Energy Resources taking 
to help promote energy security and diversification in Latin America 
and the Caribbean region?

    Answer. Energy security through greater diversification is the core 
of our energy diplomacy strategy in Latin America and the Caribbean. 
The Western Hemisphere has extensive energy resources. For example, 
Colombia is the 5th-largest coal producer in the world, Trinidad and 
Tobago is the 6th-largest exporter of liquefied natural gas (LNG), and 
Argentina is estimated to have some of the largest recoverable shale 
gas reserves in the world. And in recent years, more opportunities are 
appearing: the Caribbean and Central America have significant 
geothermal potential, Brazil has seen wind energy outcompete coal 
development without subsidies, and energy efficiency could drive 
savings throughout the hemisphere. But much more remains to be done, 
especially in countries were insufficient energy governance and poor 
investment environments stymie the progress of energy reform.
    The Department's Energy Resources Bureau (ENR), in collaboration 
with the Western Hemisphere Affairs Bureau, seeks to improve energy 
governance, access to finance, international cooperation and 
collaboration, and support visionary solutions to maximize the energy 
security of our friends and partners. We engage bilaterally and 
multilaterally throughout the hemisphere. Some example activities 
include:

  <diamond> Ensuring that conventional and unconventional gas and oil 
        development is done with the highest standards for safety and 
        transparent governance in Colombia, Brazil, and Mexico under 
        the Unconventional Gas Technical Engagement Program and Energy 
        Governance and Capacity Initiative;
  <diamond> Supporting the development of integrated, robust, and 
        transparent power sectors in Central America and the Andean 
        region under the Power Sector Program, a primary objective of 
        the ``Connecting the Americas 2022'' Initiative from the 2012 
        Summit of the Americas; and,
  <diamond> Exploring the reforms and regional coordination necessary 
        to enable natural gas trade in the Caribbean region in 
        cooperation with the Department of Energy and Inter-America 
        Development Bank, a key element of the Caribbean Energy 
        Security Initiative. Recently, with significant engagement and 
        technical assistance from ENR, Nevis island of Saint Kitts and 
        Nevis signed a power purchase agreement (PPA) to develop 
        geothermal resources. This project has the potential to provide 
        sustainable renewable power to the entire country, and may also 
        lead to the first-inter-island electrical interconnection in 
        the Caribbean. Nevis' experience can provide a model for other 
        very small countries in the Caribbean that want to diversify 
        their energy sectors, but lack access to natural gas markets.

    Question. The International Energy Agency coordinates the release 
of emergency petroleum reserves. In 2011, there was a release of oil 
from the Strategic Petroleum Reserve.

  <diamond> What is the U.S. policy and criteria for advocating a 
        coordinated release of Strategic Petroleum Reserves through the 
        International Energy Agency? Under what circumstances would you 
        advise the President to release oil from the Strategic 
        Petroleum Reserve?

    Answer. Decisions to withdraw crude oil from the Strategic 
Petroleum Reserve (SPR) are made by the President in cases of ``a 
severe energy supply interruption or by obligations of the United 
States under the International Energy Program'' as defined by and under 
the authorities of the Energy Policy and Conservation Act of 1975. The 
SPR enhances the Nation's energy security by storing over 700 million 
barrels of crude oil. If a petroleum supply interruption occurs, this 
oil can be released at a sustained rate of 4.4 million barrels per day 
for 90 days. The SPR helps meet the Nation's obligations under the 
International Energy Agency's (IEA) International Energy Program to 
hold emergency petroleum stocks equivalent to 90 days of net imports. 
While the SPR currently holds the equivalent of 137 days of import 
protection, the United States also has the obligation, based on its 
share of IEA members' oil consumption, to provide 43.5 percent of an 
IEA collective stocks release. By maintaining an adequate and ready 
supply of oil in the SPR that can be delivered quickly and efficiently 
to global markets, the United States is less vulnerable to short term 
oil supply disruptions and resultant economic dislocations.
    Energy security was the primary reason the IEA was created in 
response to the 1973 oil embargo and continues to be its guiding 
principle. Officers of the Bureau of Energy Resources, along with their 
DOE colleagues, participate in representing the United States at the 
IEA and engaging in its energy security work. The United States 
actively participates in IEA emergency response preparedness exercises 
and reviews to ensure that the IEA and its 29 member countries are 
prepared to respond to an oil supply disruption. As a result, the IEA 
is always ready to immediately activate its existing collective 
response mechanism among the 29 member countries as necessary. Any 
decision to initiate a collective action to release oil stocks requires 
consensus among the 29 members of the IEA. The United States remains in 
constant contact with the IEA Secretariat and with other IEA members on 
the situation in petroleum markets to ensure all are prepared to react 
appropriately in a crisis. As in the IEA's three previous collective 
actions in 1991, 2005, and 2011, U.S. participation in an IEA 
coordinated release would enhance energy security and lessen economic 
dislocations for all countries that participate in the oil market, 
including the United States.
    We will continue to advise the President based on these parameters, 
as we did most recently in 2011.

    Question. What is Bureau of Energy Resources' role in the United 
Nations Sustainable Energy for All initiative?

    Answer. The United States has supported the Sustainable Energy for 
All (SE4All) initiative since its inception in 2011. The State 
Department's Bureau of Energy Resources (ENR), alongside the Department 
of Energy, coordinates U.S. Government action toward achieving, by 
2030, the SE4All objectives of ensuring universal access to modern 
energy services, doubling the rate of improvement in energy efficiency, 
and doubling the share of renewable energy in the global energy mix.

    Question. Under current law, Congress created a Coordinator for 
International Energy Affairs that reports directly to the Secretary of 
State. If confirmed, will you also serve in that role? How many people 
currently work at the Office of the Coordinator for International 
Energy Affairs?

    Answer. If confirmed, I would serve concurrently as Assistant 
Secretary for Energy Resources and Coordinator for International Energy 
Affairs.
    I am the only employee of the Office of the Coordinator for 
International Energy Affairs. There are 68 permanent full time 
equivalent (FTE) employees and 9 temporary positions in the Bureau of 
Energy Resources.

    Question. What are your views of Nord Stream II and the 
implications for the region?

    Answer. We are concerned that the Nord Stream II pipeline 
expansion, if constructed, would be a significant energy security 
threat to Ukraine as well as to Central and Eastern Europe. Russian 
President Putin and Russia's energy company's (Gazprom) CEO Alexey 
Miller are leading the efforts to build Nord Stream II from Russia to 
Germany. Gazprom's CEO Miller has publicly stated his interest in 
cutting off gas transit through Ukraine by 2019. Nord Stream II, by 
increasing the amount of Russian gas shipments to European customers 
via the Baltic Sea, would contribute to this possibility by allowing 
Gazprom to cut shipments to and through Ukraine and potentially other 
Eastern European countries while maintaining supplies to only a few 
European customers. Ending Ukraine gas transit would eliminate 
approximately $2 billion in annual transit revenue for Ukraine and $1 
billion for Slovakia.
    We also are concerned that the Nord Stream II pipeline, by 
maintaining or increasing the amount of Russian gas to Central and 
Eastern Europe, would undermine the European Union's energy security 
strategy of diversifying its energy supplies to reduce vulnerability to 
supply disruptions. We actively support EU policies to ensure 
competition and transparency in a strong EU internal energy market that 
benefits all European consumers.
    The Bureau of Energy Resources has led U.S. Government efforts to 
engage the European Commission and member states on the potential risks 
of the Nordstream II pipeline for Ukraine and Europe's long-term energy 
security.

    Question. To what extent, if at all, has Germany's reliance on 
Russian energy resources prevented the European Union from developing a 
unified policy toward Russia or a cohesive European Union energy 
policy?

    Answer. German involvement is essential to ensuring a cohesive 
European Union energy policy. Reducing Russia's use of the energy 
sector to gain influence and sow divisions in Europe is critical to 
Europe's energy security. Russian gas is a significant, but not 
overwhelming, source of energy in Germany: gas accounted for 20 percent 
of Germany's energy mix and 10 percent of its electricity production in 
2014; 33 percent of that gas came from Russia. There is a strong view 
in Germany that Russia does not pose an energy security threat to 
Germany, because even in the roughest days of the cold war, Russia 
continued to supply it with gas.
    Germany, like all EU member states, endorsed the EU's reinvigorated 
Energy Union strategy in a European Council decision on March 19, 2015. 
We continue to work with our German partners to improve the energy 
security of all of Europe, including by noting our concerns about the 
proposed Nord Stream II pipeline expansion, which is being promoted by 
a consortium of Russian and European companies (including two German 
companies). We see Nord Stream II as a political project based on 
Gazprom CEO Miller's public statement to cut off gas transit through 
Ukraine by 2019, and question its economic value.

    Question. How can the United States help Germany and the European 
Union meet its energy demands and help support a strong European Union 
energy diversification and security policy?

    Answer. The United States is strongly committed to helping advance 
European energy security, and the Bureau of Energy Resources is leading 
U.S. Government efforts on this top foreign policy priority. ENR and 
the State Department are actively engaging to promote true energy 
diversification in Europe--diversification of energy sources, routes, 
and suppliers. We also believe that cooperation in the energy sector 
can help foster cooperation in other areas, leading to more political 
cohesion and stability among countries in the region.
    Tangible evidence of the U.S. commitment can be seen in our support 
of key infrastructure projects to improve the energy security of the 
most vulnerable regions in Europe. These efforts include U.S. support 
for the development of the Southern Gas Corridor project, which will 
bring gas from Azerbaijan to Turkey and Europe. We are also working 
closely with Greece and Bulgaria on an interconnection pipeline that 
would bring Southern Corridor gas from Greece to Bulgaria, which is 
close to 100 percent dependent on Russian gas. A new floating LNG 
facility in Lithuania is now in place--aptly named the Independence--
which can be traced back to a U.S.-funded feasibility study in 2008. A 
year ago, the Baltics were virtually an energy island entirely 
dependent on a single source for all their natural gas needs. As a 
result of this new facility, they are now on track to be one of the 
most integrated energy regions by the end of this decade.
    The United States also provides strong and consistent political and 
technical support for regional energy security under the U.S.-EU Energy 
Council, which is cochaired by Secretary of State Kerry and Secretary 
of Energy Moniz, EU High Representative/Vice President Federica 
Mogherini, and European Commission Vice President Marosfcovic. The 
U.S.-EU Energy Council has convened six times since 2009.
    We will continue to work to ensure that gas that arrives anywhere 
in Europe can be delivered to any customer in Europe. We are also 
working to promote U.S. technology and companies as Europeans look to 
integrate more renewable energy and adopt more energy efficiency 
measures. Energy security demands the attention and cooperation of all 
European countries, and we are working closely with member states, 
including Germany, and the European Commission as we advocate for true 
energy diversification for all of Europe.

                               __________

 Responses of Catherine Ebert-Gray, Nominated to be Ambassador to the 
Independent State of Papua New Guinea, and to the Solomon Islands, and 
 to the Republic of Vanuatu to Questions from Members of the Committee

              ambassador-designate ebert-gray's responses 
                    to questions from senator corker
    Question. Although the United States has a rich history of 
engagement and some important interests in the Southwest Pacific 
Islands, including energy production and fisheries, the distance and 
relatively small percentage of overall U.S. foreign assistance to Papua 
New Guinea, the Solomon Islands and Vanuatu translates into scant 
attention from senior-level policymakers.

  <diamond> Should the United States play a greater role in the 
        Southwest Pacific, particularly as Chinese economic influence 
        continues to grow in Papua New Guinea and Vanuatu?

    Answer. The United States plays a vital role in the Southwest 
Pacific. President Obama met with Papua New Guinea (PNG) Prime Minister 
Peter O'Neill on December 1, 2015, Secretary of State Kerry stopped in 
the Solomon Islands in 2014, and Secretary Clinton visited PNG in 2010. 
The United States Government will engage at a high level with Papua New 
Guinea over the coming years in the run up to its hosting of the Asia-
Pacific Economic Cooperation Summit in 2018.
    We have close and warm relationships with the governments and 
peoples of Papua New Guinea, Vanuatu, and the Solomon Islands. All 
three countries face many challenges, including economic development, 
good governance, gender equality, climate change, conservation and 
environmental protection, and transnational crime. With PNG we are 
negotiating a Customs Mutual Assistance Agreement; support programs for 
the prevention, care, and treatment of HIV/AIDS; and work to combat 
violence against women. In 2011, the Millennium Challenge Corporation 
completed a successful road construction project in Vanuatu designed to 
promote commerce and boost economic growth. Vanuatu also hosts a robust 
Peace Corps program. We are partnering with the Solomon Islands 
government to strengthen its capacity to curtail trafficking in 
persons.
    China is increasing its economic engagement in PNG, particularly in 
the construction, telecom, and service sectors. We welcome China's 
investments in infrastructure in Asia, provided these investments are 
made in accordance with international standards of sustainability, 
transparency, and economic efficiency.
    If confirmed, I will pay close attention to Chinese investment 
while working to promote transparency and good governance, including by 
trying to strengthen PNG's participation in the Extractive Industry 
Transparency Initiative. If confirmed, across the Southwest Pacific, I 
will advance the strong progress our Embassy has been making on health 
issues and women's empowerment; maintain our mission's focus on 
building climate resilience to help mitigate potential impacts to these 
island nations; and promote economic development and fisheries 
protection by working with the U.S. Coast Guard to increase Shiprider 
agreements.

                               __________

 Responses of Scot Marciel, Nominated to be Ambassador to the Union of 
           Burma, to Questions from Members of the Committee

               ambassador-designate marciel's responses 
                    to questions from senator corker
    Question. The Burmese Constitution shields the military from 
civilian oversight, provides the military control of key security 
ministries, and guarantees the military 25 percent of the seats in the 
Parliament.

  <diamond> What level of engagement with the Burmese military, if any, 
        is appropriate for the United States?

    Answer. The United States has limited and calibrated engagement 
with Burma's military to encourage and demonstrate the importance of 
human rights, accountability, transparency, civilian control, and the 
proper role of a professional military in a modern, democratic society. 
We do not provide any weapons, technologies, or operational support of 
any kind to the Burmese military.
    We believe in the value of speaking ``soldier to soldier'' with 
Burma. Dialogue between our two countries' armed forces provides a 
mechanism to share lessons, identify challenges, and illustrate U.S. 
military traditions and doctrine--specifically, the respect and defense 
of human rights and a civilian-led government. To that end, our 
interactions have consisted primarily of diplomatic interactions and 
academic exchanges designed to promote the ideals and values of a 
professional military in a democracy. These interactions and exchanges 
have focused on accountability, civilian control, rule of law, and 
respect for international humanitarian and human rights law.
    We continue to calibrate our policy in response to events on the 
ground, and we are looking for progress on a wide range of issues, 
including the peace process, the protection of broad political and 
civil liberties, the situation facing the Rohingya population, and 
constitutional reforms. The Burmese military's ability to demonstrate 
concrete progress on these issues will be important in furthering our 
bilateral relationship.
    Over the longer term, the Burmese Government will need to address 
provisions in Burma's Constitution, such as the lack of civilian 
control of the military and the military's veto power over 
constitutional amendments that contradict fundamental democratic 
principles. It will be important to the success of Burma's democratic 
transformation that the constitution be amended to make it appropriate 
for a democratic state.

    Question. Burma's treatment of the Muslim minority Rohingya has 
been widely condemned by the international community. Many Rohingya 
live in deplorable conditions and are the victims of human trafficking. 
Burma is currently a Tier 2 Watch List country.

  <diamond> What is your assessment of the willingness of a new NLD-led 
        government to undertake steps to address the plight of the 
        Rohingya, including citizenship status?
  <diamond> What would you do as Ambassador to persuade the Burmese 
        Government to improve their poor record on trafficking?

    Answer. When Assistant Secretary Daniel Russel traveled to Burma in 
November he met with leaders in the current government and the National 
League for Democracy (NLD), including President Thein Sein and Aung San 
Suu Kyi. He underscored in his meetings with them the importance of 
tackling the situation in Rakhine State and strengthening the 
protection for human rights and freedoms for all people in Burma.
    The NLD agreed that addressing the challenging situation in Rakhine 
State was a top priority for the incoming government, and noted the 
importance of promoting tolerance and respect for diversity as well as 
development for both Rohingya and Rakhine communities. The situation in 
Rakhine State has been a long-standing challenge and will be an 
important issue for the next government to address. It will be one of 
my top priorities as well.
    The U.S. Government remains committed to encouraging progress in 
Rakhine State, including by urging the government to put in place a 
dignified and transparent pathway to citizenship that does not force 
individuals to self-identify against their will. We will continue to 
review all of our engagements in light of the extent to which the 
government follows through on its commitments to protect human rights, 
improve the situation in Rakhine State, and address the plight of the 
Rohingya population--as well as the success of the next government in 
continuing broad reforms. We will also continue consulting closely with 
Aung San Suu Kyi and other democratic leaders in Burma on this issue. 
We remain committed to supporting Burma's ongoing transition toward a 
more democratic, open society.
    Since the release of the 2015 Trafficking in Persons (TIP) report, 
which ranked Burma Tier 2 Watch List, the government has made sustained 
efforts to combat trafficking, but many challenges remain. To continue 
to foster high-level government support for improving Burma's 
trafficking record, we must continue to encourage them to address all 
forms of TIP--including cases within the country and cases involving 
the military--and address outstanding challenges, including limited 
resources and capacity, and intergovernmental coordination. If 
confirmed, this will be an important priority for me.

                               __________
               ambassador-designate marciel's responses 
                    to questions from senator cardin
    Question. In 2008, the Treasury Department imposed sanctions on 
Steven Law, as well as his father, for supporting the ruling Burmese 
junta and for profiting corruptly because of that support. Steven Law 
and his father have a history of involvement in illicit activities. Lo 
Hsing Han, Steven Law's father, now deceased, is known as the 
``Godfather of Heroin,'' and has been one of the world's key heroin 
traffickers dating back to the early 1970s. Yet Steven Law's company 
continues to thrive having most recently been awarded one of the 
country's most coveted contracts to upgrade Yangon's international 
airport.

  <diamond> If confirmed can you assure us that you will raise this 
        case at the highest levels of Burmese Government?

    Answer. Yes, if confirmed I will raise this issue at the highest 
levels of the Burmese Government.

    Question. There are concerns that the SDN list could amount to a de 
facto trade embargo undermining economic development in Burma because 
half of all Myanmar's trade flows through the Asia World terminal.

  <diamond> How should we balance our priorities of promoting Myanmar's 
        democratic transition through economic development while also 
        ensuring that illicit actors do not benefit?
  <diamond> If a General License is issued for Asia World Port, 
        wouldn't we be, in effect, allowing a SDN designated individual 
        continue to profit, thus undermining our broader efforts to 
        help Burma reform and clean up its economy?
  <diamond> As we issue this License, are there additional demands that 
        we are making on the Government of Burma to assure we maintain 
        our leverage?

    Answer. Balancing our priorities of supporting Burma's economic 
development and democratic transition, while maintaining the integrity 
of our sanctions policy, requires a carefully calibrated approach. The 
current sanctions are having an outsized effect on trade between the 
United States and Burma simply because many goods may pass through 
infrastructure with links to a Specially Designated National (SDN), 
which is unfortunately hard to avoid in Burma. By issuing a General 
License authorizing certain transactions ordinarily incident to the use 
of critical trade infrastructure for exports to or from Burma that are 
not to, from, or on behalf of an SDN for a limited period while 
continuing to prohibit investment in entities on the SDN list, we 
facilitate trade without reducing incentives for reform. Without a 
General License, we run the risk of damaging the economy during the 
critical transition period to a new government when expectations for 
economic development are running high.
    With this General License, our sanctions regime remains in place 
and the leverage that it provides is fundamentally unchanged. Not only 
is the General License limited to a 6-month duration, but what SDNs 
want the most--new investment by and exports to, from, or on their 
behalf with U.S. companies--remains prohibited. Calibrated sanctions 
remain in place, including a ban on investment with the military, and a 
ban on importing Burmese-origin rubies, jadeite, and jewelry that 
contains them. In our ongoing discussions with the Government of Burma 
and private sector, we will continue to underscore that the level and 
type of engagement is contingent upon further reforms, including 
constitutional reform and improvement in the human rights situation.

    Question. How can we best leverage the SDN list diplomatically to 
ensure we can put pressure on corrupt and crony-owned businesses 
enterprises in Burma?

    Answer. We use many tools to encourage progress in Burma's 
political and economic transition, including diplomatic engagement and 
targeted financial sanctions aimed at those who undermine reform or the 
peace process in Burma, engage in human rights abuses, or participate 
in military trade with North Korea. Our Specially Designated Nationals 
(SDN) list is a dynamic document--we can add or subtract individuals or 
entities on the list as circumstances warrant and supporting 
information is available. The United States has always made clear that 
SDNs can seek delisting if they cease sanctionable activities. Removal 
from the SDN list is an administrative process overseen by the 
Department of the Treasury's Office of Foreign Assets Control (OFAC). 
SDNs seeking delisting may submit a petition to OFAC by submitting 
verifiable information demonstrating remedial steps, changed behavior, 
and a commitment to supporting the ongoing political and economic 
reforms, cutting military ties, and avoiding complicity in human rights 
abuses and participation in military trade with the Democratic People's 
Republic of Korea.
    The extent to which the Government of Burma follows through on its 
commitments to respect the results of the election, peacefully transfer 
power, and protect the human rights of members of all its diverse 
populations--as well as the success of the next government in 
continuing broad reforms, including constitutional reform and improving 
the situation facing the Rohingya population--will determine to a large 
extent the level and type of engagement and support Burma will receive 
from the United States. We will also discuss the role of sanctions 
going forward with Congress, Aung San Suu Kyi, and other key 
stakeholders in Burma.

                               __________
               ambassador-designate marciel's responses 
                    to questions from senator rubio
    Question. What role do you think the United States and the Embassy 
in particular should play in the ongoing peace process in Burma? What 
is your plan to build trust with the ethnic nationalities?

    Answer. The United States remains committed to supporting the full 
implementation of a durable cease-fire agreement, the conduct of a 
national political dialogue, and the overall national reconciliation 
process in the months and years to come. Our Embassy regularly engages 
with Government of Burma officials and ethnic organizations to assist 
in moving the dialogue forward. We have provided material and technical 
support to enable political reforms, foster ethnic and religious 
reconciliation, and strengthen the capacity of reform-minded 
individuals and institutions. U.S. assistance has supported the formal 
peace process, increased participation of civil society and women, 
preparations for a national political dialogue, and ongoing civilian 
cease-fire monitoring. We will continue to work with all key 
stakeholders--including ethnic leaders and organizations--to further 
peace prospects.
    We recognize that some groups were not able to sign the agreement, 
and we understand and respect their concerns. We welcome their 
commitment to continue discussions within their communities and with 
the government about the necessary conditions for signing at a future 
date, and we urge the government to engage constructively in a dialogue 
with these groups to pursue a more inclusive peace. We also strongly 
urge all parties to honor their commitment to ensure unfettered access 
for humanitarian assistance to all those in need, without exception or 
delay.

    Question. The U.S. is not presently an official observer of the 
peace process. Do you believe the U.S. should be an official observer? 
Why or why not?

    Answer. While the United States was not an official observer, we 
did have a formal presence at the cease-fire agreement signing and 
Ambassador Mitchell signed a parallel ``in the presence of'' document 
marking the formal attendance of the United States.
    We have long stated the United States would seriously consider any 
requests from the Government of Burma and ethnic organizations that 
would advance the cause of peace in Burma. We are committed to 
remaining actively engaged in a national reconciliation process, 
including supporting the full implementation of the NCA and the 
political dialogue to follow.

    Question. Do you support a continued role for the Myanmar Peace 
Center in the peace process given its association with the outgoing 
regime?

    Answer. We would defer to the incoming government on the uture role 
of the Myanmar Peace Center, but the United States is prepared to work 
with key stakeholders in the peace process--as it has in the past--to 
advance the historic process of peace-building and national 
reconciliation in Burma in the months and years to come.

    Question. The SDN list remains a valuable tool to not only 
encourage reform but to address systemic wrongdoing by successive 
Burmese military regimes and their enablers, including but not limited 
to involvement in drug trafficking, human trafficking, and gross human 
rights abuses. Likewise, limits on U.S. assistance to, and cooperation 
with, the military also serve to withhold legitimacy that the Tatmadaw 
is eager to obtain through such cooperation.

  <diamond> Do you believe that entities that were placed on the SDN 
        list due to their involvement in drug trafficking, human 
        trafficking, or serious human rights abuses should be delisted 
        in response to political reforms that, while significant in 
        restoring civilian rule, fail to provide a mechanism to address 
        the crimes or abuses for which the entities were initially 
        listed?

    Answer. No. The United States currently has no plans to change our 
approach to the Specially Designated Nationals (SDN) list. Our SDN list 
is a dynamic document--we can add or subtract individuals or entities 
on the list as circumstances warrant. Removal from the SDN list is an 
administrative process overseen by the Treasury Department's Office of 
Foreign Assets Control (OFAC). SDNs seeking delisting may petition OFAC 
by submitting verifiable information demonstrating remedial steps, 
changed behavior, and a commitment to supporting the ongoing political 
and economic reforms, promoting transparency, cutting military ties, 
and avoiding complicity in human rights abuses.
    The extent to which the Government of Burma follows through on its 
commitments to respect the results of the election, peacefully transfer 
power, and protect the human rights of all its diverse peoples--as well 
as the success of the next government in continuing broad reforms--will 
determine to a large extent the level and type of engagement and 
support Burma will receive from the United States. We will also discuss 
the role of sanctions going forward with Aung San Suu Kyi and other key 
democratic stakeholders in Burma.

    Question. What is your view on U.S. assistance to, or engagement 
with, the Burmese military, ministries that remain under its control 
and other entities that allow the military to continue to exercise 
undue influence and subvert civilian governance? How should this 
engagement be calibrated? What benchmarks for progress by the military 
should be used to calibrate engagement with the military?

    Answer. The United States has limited and calibrated engagement 
with Burma's military to encourage and demonstrate the importance of 
human rights, civilian control of the military, and the proper role of 
professional armed forces in a modern, democratic society. We are not 
providing any weapons, technologies, or operational support of any kind 
to the Burmese military. The values listed above will be some of the 
benchmarks we use when calibrating our engagement with the Burmese 
military. When evaluating our engagement, we would also continue to 
consult broadly with civil society organizations, ethnic organizations, 
political party leaders, and other stakeholders.
    Continued reform of Burma's military is necessary to deepen the 
democratic transition. Facilitating greater cooperation between 
civilian and military organizations in Burma, and securing the 
military's support for ongoing reforms, will be essential to the 
success of the new government. Any programs would be contingent upon 
continued reforms, and only after continued consultation with Congress, 
civil society organizations, ethnic organizations, and political 
parties, including the NLD.

    Question. The outgoing government has backslid on key issues in the 
past year. The situation in Rakhine state remains deplorable, and the 
passage of the four ``race and religion laws'' by the Thein Sein 
government threatens to further institutionalize racism and 
discrimination against the Rohingya and other Muslim minorities. 
Military attacks in Shan and Kachin states have led to massive 
displacement of civilians and casualties. And dozens of political 
prisoners have been newly detained in just the past year.

  <diamond> What is the current U.S. position on humanitarian access in 
        Rakhine State? Has the U.S. endorsed the government's Rakhine 
        Action Plan? What is the current status of the RAP?

    Answer. We have consistently urged the government, both publicly 
and privately, to ensure that humanitarian assistance flows freely to 
all vulnerable populations in Rakhine State, including Rohingya. We 
will continue to urge the government to lift restrictions on freedom of 
movement, allow for the safe and voluntary return of internally 
displaced persons, including Rohingya, to their places of origin, 
provide a pathway to or restore citizenship for stateless persons in 
Rakhine State and elsewhere that does not force individuals to adopt 
ethnic designations they do not accept, and reinforce the rule of law 
by protecting members of vulnerable populations.
    The government will also need to address the long-standing core 
challenges in Rakhine State and improve the lot of all communities 
there, including the Rohingya and ethnic Rakhine populations. This will 
require creating economic opportunity and development, improving basic 
infrastructure, developing and expanding access to education, health 
and livelihoods that benefit all communities fairly and equitably, and 
facilitating trust-building and interactions between both communities. 
The United States has not endorsed the draft Rakhine Action Plan but 
has, together with other members of the international community, 
provided feedback to the Government of Burma on it. Within the past 
year, the government has taken incremental steps to improve conditions 
in Rakhine State, including returning some internally displaced persons 
to their places of origin.

    Question. Has the U.S. called for the lame-duck Burmese Government 
to repeal the discriminatory race and religion laws before they leave 
office?

    Answer. We have consistently raised our concerns at the highest 
levels about the package of legislation on population control, 
interfaith marriage, religious conversion, and monogamy. These laws 
could be enforced in a manner that would undermine respect for 
religious freedom, women's rights, and the Burmese Government's own 
efforts to promote tolerance, diversity, and national unity. We have 
stressed to the government and a full range of Burmese stakeholders 
that protection of human rights and fundamental freedoms, including 
religious freedom, for all persons in Burma--regardless of race or 
religion--are critical components of national security, stability, 
unity, and the country's reform process. We continue to urge the 
Burmese Government to revise the legislation in line with its 
international human rights commitments.

    Question. Has the U.S. called for the Tatmadaw to cease all 
offensive operations against ethnic nationalities?

    Answer. The United States has consistently called for all parties 
to refrain from violence and allow urgent humanitarian assistance to 
flow to all those in need without exception or delay. We have made 
clear to the Burmese Government that military action undertaken by or 
against any signatory or nonsignatory to the nationwide cease-fire 
agreement undermines the trust-building necessary for lasting peace, 
stability, and security for all.

    Question. Has the U.S. called on the Thein Sein administration to 
release all political prisoners, including those who are still awaiting 
sentencing, prior to leaving office?

    Answer. The United States continues to urge the Government of Burma 
to resume working with civil society to release all remaining political 
prisoners unconditionally, to remove conditions placed on those already 
released, and to continue comprehensive legal reforms to ensure there 
are no new arrests for political reasons.

                               __________
               ambassador-designate marciel's responses 
                   to questions from senator gardner
U.S. sanctions on Burma
    According to press reports, the administration is moving to modify 
the existing sanctions regime regarding Myanmar (Burma), including 
issuing ``a general license that would in effect provide permission for 
U.S. businesses and banks to pay fees for the use of the Asia World 
port in Yangon, even though the money flows into the coffers of Asia 
World and the Burmese regime.'' (Bloomberg News, December 4, 2015).
    However, at your confirmation hearing before the committee on 
Wednesday, December 1, 2015, you stated that you ``would not 
anticipate, nor recommend'' changes to U.S. sanctions toward Burma.
    On November 19, 2015, during his testimony before the Subcommittee 
on East Asia, the Pacific, and International Cybersecurity Policy, 
Deputy Assistant Secretary of State Scott Busby stated: ``I think in 
the case of Burma, for instance, the fact that there were sanctions 
there, a significant sanctions regime, did play a significant role in 
helping to spark change there.''

    Question. Does the planned announcement by the Treasury Department 
represent a change in U.S. sanctions policy toward Burma? Do you 
believe the planned decision runs contrary to your statements before 
the committee? What is the U.S. policy toward the remaining U.S. 
sanctions on Burma?

    Answer. The planned General License is a technical solution 
designed to solve a specific problem we just recently realized was 
having a negative impact on international trade with Burma. Such trade 
is vital to avoid harm to Burma's economy. The National League for 
Democracy has made clear that economic development--delivering jobs and 
opportunity for the people of Burma amidst high expectations--is a key 
priority and critical for their success as a government and for Burma 
as a country.
    The planned change does not represent a change in U.S. sanctions 
policy toward Burma. That said, there might be a need on occasion to 
make adjustments to those sanctions within the overall framework of the 
policy to address unintended consequences, in consultation with 
Congress. That is what we seek to do in this particular case. Without a 
General License we would constrain exports by ordinary businesses in 
Burma that are not subject to sanctions, simply because they pass 
through a transit point that is controlled by a Specially Designated 
National. Our current sanctions are not intended to have this effect, 
and the point of the General License is to eliminate this effect while 
still preventing the flow of investment to Specially Designated 
Nationals and the Burmese military.
    Our existing policy broadly eases financial investment and trade 
sanctions on Burma in response to significant positive reforms in the 
country, while maintaining targeted sanctions against specific 
individuals and entities that undermine reform, obstruct the peace 
process, engage in human rights abuses, or participate in military 
trade with the Democratic People's Republic of Korea. The 
administration has no intention of proposing a change to the sanctions 
regime at this point and the planned decision would not run contrary to 
my statements before the committee. In those statements, I said the 
administration would not recommend any dramatic change to our sanctions 
policy, and while targeted sanctions would continue, we would not 
pursue overall broad-based sanctions to avoid damage to Burma's 
economy. I also noted that targeted sanctions are dynamic--we can add 
and remove individuals from the list--and make adjustments when we see 
unintended consequences or problems.

    Question. To what extent was the State Department consulted by the 
Treasury Department in making the decision to issue this proposed 
license? Which bureaus were consulted and approved of the decision to 
issue this proposed license?

    Answer. This issue first came to our attention in July. Since then, 
the Department of State and the Department of Treasury have worked 
closely together to gather additional information, study the problem, 
and consider potential solutions. The State Department's Bureau of East 
Asian and Pacific Affairs, the Bureau of Economic and Business Affairs, 
the Bureau of Democracy Human Rights and Labor, and the Coordinator for 
Sanctions Policy worked closely with the Treasury Department's Office 
of Foreign Assets Control throughout this process. Our Embassy in 
Rangoon has also been part of the process, in part because they have 
seen firsthand the negative, constricting effect that the existing 
language has had on imports and exports to and from Burma, and the 
impact this is having on the economy and the ability of U.S. business 
to support the growth of the economy and democratic transition. Embassy 
Rangoon consequently has had an important role in gathering the 
information and data that have helped find a solution to this problem.

    Question. In your role as Principal Deputy Assistant Secretary of 
State for East Asia and the Pacific, were you aware of this issue prior 
to your testimony before the committee?

    Answer. Yes, I have been aware of this issue since the issue came 
to our attention in July.

    Question. Can you provide to the committee, in an appropriate 
setting, all written formal communication between the State Department, 
the Treasury Department, and other U.S. stakeholders regarding this 
proposed action?

    Answer. The State Department and the Treasury Department have 
proactively consulted Congress on this proposal, and I welcome the 
opportunity to continue discussions on this issue. As a matter of 
policy, the Department does not release communications or documents 
related to internal deliberations. That being said, the Department 
values consultations with Congress, and if confirmed, I commit to 
engaging and consulting with you, your staff and the committee on this 
and other issues of concern related to Burma.

    Question. Has the State Department consulted with stakeholders in 
Burma, including the National League of Democracy, regarding this 
proposed action? If so, what was their response?

    Answer. Yes. The Embassy has consulted with stakeholders in Burma, 
including Aung San Suu Kyi's chief of staff and members of the National 
League for Democracy (NLD). We also have sought an opportunity to 
discuss further with top NLD leadership the details of the proposed 
license, the NLD's economic goals, and how our policy can continue to 
support the democratic transition.

    Question. Do you believe that this proposed action weakens U.S. 
leverage in Burma before the completion of the political transition 
next April?

    Answer. No, I do not believe that the proposed action weakens U.S. 
leverage in Burma before the completion of the political transition. 
With the General License, our sanctions regime stays in place and the 
leverage that it provides is unchanged. The key reason the 
administration is issuing the General License is to address concerns 
that the U.S. Government's sanction regime is inadvertently 
constricting imports and exports to Burma, which could have a negative 
impact on the Burmese economy, complicating the transition and making 
more difficult the ability of the National League for Democracy to 
govern.

    Question. Do you believe that entities that were placed on the 
Special Designated Nationals (SDN) list due to their involvement in 
drug trafficking, human trafficking, or serious human rights abuses 
should be delisted in response to political reforms, even if there is 
no evidence that the crimes or abuses for which the entities were 
initially listed have been addressed?

    Answer. No. The United States currently has no plans to change our 
approach to the Specially Designated Nationals (SDN) list. Our SDN list 
is a dynamic document--we can add or subtract individuals or entities 
on the list as circumstances warrant. Removal from the SDN list is an 
administrative process overseen by the Treasury Department's Office of 
Foreign Assets Control (OFAC). SDNs seeking delisting may petition OFAC 
by submitting verifiable information demonstrating remedial steps, 
changed behavior, and a commitment to supporting the ongoing political 
and economic reforms, promoting transparency, cutting military ties, 
and avoiding complicity in human rights abuses.
    The extent to which the Government of Burma follows through on its 
commitments to respect the results of the election, peacefully transfer 
power, and protect the human rights of all its diverse populations--as 
well as the success of the next government in continuing broad reforms, 
including constitutional reform and improving the situation facing the 
Rohingya--will determine to a large extent the level and type of 
engagement and support Burma will receive from the United States. We 
will also discuss the role of sanctions going forward with Aung San Suu 
Kyi and other key democratic stakeholders in Burma.
Burma elections
    Question. Have the November 8, 2015, parliamentary elections in 
Burma met the State Department's criteria of ``credible, transparent, 
and inclusive''?

    Answer. We congratulate the people of Burma on the November 8 
election and commend all of the people and institutions in the country 
who worked together to hold a peaceful and historic poll. Millions of 
people voted for the first time in a competitive election with more 
than 90 political parties campaigning. The elections were peaceful and 
generally proceeded smoothly with only minor irregularities and no 
systemic security, electoral administration, or access issues reported 
by observers on election day. This election was an important step in 
the country's democratic transition. The people of Burma struggled for 
decades, and made tremendous sacrifices, for this moment to happen.
    The elections, however, were far from perfect. Important structural 
and systematic impediments to the realization of full democratic and 
civilian government remain, including the reservation of 25 percent of 
parliamentary seats for the military, the disenfranchisement of groups 
of people who voted in previous elections (including Rohingya and other 
former white card holders), and the disqualifications of candidates 
based on arbitrary application of citizenship and residency 
requirements.
    It will now be important for all political leaders to work together 
to form a new government and to engage in meaningful dialogue. We have 
seen some evidence this is happening already, with Aung San Suu Kyi's 
meetings with President Thein Sein, Commander in Chief Min Aung Hlaing, 
and former Commander in Chief Than Shwe. The next government must 
address the huge challenges that remain in the country, including 
completing the national reconciliation process with various ethnic 
groups, strengthening respect for and protection of human rights and 
fundamental freedoms, and improving the situation in Rakhine State.

    Question. In your view, should the more traditional definition of 
``free and fair'' have been used for elections? Would Burma have been 
able to meet that standard?

    Answer. We used the terms credible, inclusive, and transparent 
because those terms were more precise in describing the key indicators 
of a successful election. We want free and fair elections, but we 
recognize the inherent limitations in Burma's current constitutional 
framework, including the 25 percent of parliamentary seats reserved for 
military officials, the disenfranchisement of white card holders who 
voted in previous elections, and the disqualifications of candidates 
based on arbitrary application of citizenship and residency 
requirements. We continue to be clear-eyed in identifying limitations 
to any assessment of Burma's overall democratic progress.
Human rights in Burma
    Question. Do you think U.S. policy has effectively addressed the 
human rights challenges in Burma, such as the Rohingya refugee issue? 
What leverage does the United States have to turn around this 
situation?

    Answer. We remain deeply concerned about the situation in Rakhine 
State and other human rights challenges in Burma. We are committed to 
encouraging progress on human rights issues, and we continue to engage 
the Government of Burma, at the highest levels, to push for further 
reforms. We will continue to review all of our engagements in light of 
the extent to which the Government of Burma follows through on its 
commitments to protect human rights, improve the situation in Rakhine 
State, and address the plight of the Rohingya population--recognizing 
that the success of the next government is dependent on continuing 
broad reforms. We also will continue consulting closely with the 
National League for Democracy and Aung San Suu Kyi, as well as other 
democratic leaders in Burma on this issue.

    Question. What will be your plan as Ambassador to move forward on 
the Rohingya refugee crisis and ethnic tensions?

    Answer. We have consistently told the Government of Burma that, 
while we welcome the important progress the country has made on its 
reform path, we remain deeply concerned about the situation in Rakhine 
State, particularly the discriminatory conditions facing the Rohingya 
population.
    If confirmed, I will continue to urge the Government of Burma to 
allow unrestricted humanitarian access for all those in need in Rakhine 
State; allow the voluntary return of internally displaced Rohingya to 
their places of origins; create a path to provide or restore 
citizenship for stateless persons in Rakhine State and elsewhere that 
does not force them to identify as a members of an ethnic group or 
nationality they do not accept; and reinforce the rule of law by 
protecting vulnerable populations and holding to account those who 
commit violence against any person in Burma. The resolution of these 
issues in Rakhine State is a critical component of Burma's transition 
to a stable, peaceful, and inclusive democracy.
    In addition to our advocacy, the United States has also taken a 
leadership role in providing humanitarian and development assistance in 
Burma. Since FY 2014, we have provided nearly $124 million in support 
of humanitarian assistance for vulnerable Burmese in Burma and the 
region. Furthermore, USAID will, contingent on availability of funding, 
provide up to $5 million of Complex Crisis Funds to provide 
livelihoods, early recovery, and trust-building support to 
approximately 5,000 Rohingya and Rakhine households, or approximately 
25,000 internally displaced persons. During the irregular migrant 
crisis earlier this year, we provided $3 million in humanitarian 
assistance for vulnerable migrants, and also helped in locating and 
identifying migrant vessels through U.S. maritime surveillance. 
Finally, we have resettled in the United States more than 140, 000 
refugees from Southeast Asia in the past decade, including more than 
1,000 Rohingya in the last 10 months.

    Question. How would the new NLD government deal with these issues?

    Answer. We cannot speak for what the National League for Democracy 
(NLD) intends to do to address these issues. We can say, however, that 
the U.S. Government has discussed this issue with the NLD many times 
and has stressed the need to find a solution.
    The situation in Rakhine State has been a long-standing challenge 
and will be an important issue for the next government to address. As 
evidenced above, it would be one of my top priorities as well, if 
confirmed.

    Question. What role do you think the United States and the Embassy 
in particular should play in the ongoing peace process?

    Answer. The United States remains committed to supporting the full 
implementation of a durable cease-fire agreement, the conduct of a 
national political dialogue, and the overall national reconciliation 
process in the months and years to come. Our Embassy regularly engages 
with Government of Burma officials and ethnic organizations to assist 
in moving the dialogue forward. We recognize some groups were not able 
to sign the agreement, and we understand and respect their decisions. 
We welcome their commitment to continue discussions within their 
communities and with the Government of Burma about the necessary 
conditions for signing at a future date, and we urge the Government of 
Burma to engage constructively in a dialogue with these groups to 
pursue a more inclusive peace. We have provided material and technical 
support to enable political reforms, foster ethnic and religious 
reconciliation, and strengthen the capacity of reform-minded 
individuals and institutions. U.S. assistance has supported the formal 
peace process, an increased participation of civil society and women, 
preparations for a national political dialogue, and ongoing civilian 
cease-fire monitoring. We will continue to work with key stakeholders--
including ethnic leaders and organizations--to further peace prospects.

    Question. Has the U.S. called for the lame-duck Burmese Government 
to repeal the discriminatory race and religion laws before they leave 
office?

    Answer. We have consistently raised our concerns at the highest 
levels about the package of legislation on population control, 
interfaith marriage, religious conversion, and monogamy. These laws 
could be enforced in a manner that would undermine respect for 
religious freedom, women's rights, and the Burmese Government's own 
efforts to promote tolerance, diversity, and national unity. We have 
stressed to the government and a full range of Burmese stakeholders 
that protection of human rights and fundamental freedoms, including 
religious freedom, for all persons in Burma--regardless of race or 
religion--are critical components of national security, stability, 
unity, and the country's reform process. We continue to urge the 
Burmese Government to revise the legislation in line with its 
international human rights obligations and commitments.

    Question. Has the U.S. called on the Thein Sein administration to 
release all political prisoners, including those who are still awaiting 
sentencing, prior to leaving office?

    Answer. Yes, the United States continues to urge the Government of 
Burma to resume working with civil society to release all remaining 
political prisoners unconditionally, to remove conditions placed on 
those already released, and to continue comprehensive legal reforms to 
ensure there are no new arrests for political reasons.

                               __________

  Responses of Linda Taglialatela, Nominated to be Ambassador to the 
   Federation of Saint Kitts and Nevis, and to Saint Lucia, Antigua, 
 Barbuda, the Commonwealth of Dominica, Grenada, and Saint Vincent and 
       the Grenadines, to Questions from Members of the Committee

             ambassador-designate taglialatela's responses 
                    to questions from senator corker
    Question. What are the main U.S. interests in Barbados and the 
other six countries of the Eastern Caribbean and where would you place 
U.S. economic engagement with region on a list of priorities?

    Answer. The United States maintains a broad set of interests in 
Barbados and across the Eastern Caribbean. Our primary interest lies in 
the protection and safety of American citizens who reside in, and 
travel to, the region. Regional engagement in the Eastern Caribbean and 
broader Caribbean generally focuses on: enhanced citizen security, 
including efforts to combat illicit trafficking; the diversification of 
energy sources and adoption of renewable energy to promote energy 
security and price stability; increased tourism and trade, including 
the promotion of U.S. exports and support to U.S. businesses; the 
strengthening of democratic institutions, the rule of law, and the 
promotion of human rights; and increased people-to-people travel, 
education, and exchanges of ideas and culture that deepen the strong 
ties between of our citizens.
    Economic engagement with the Eastern Caribbean represents a top 
priority for the U.S. Government. The United States has enjoyed a long-
standing trade relationship with Barbados and the Eastern Caribbean 
islands. We have a trade surplus with the region and U.S. products 
represent one-third of the region's total imports. Our continued 
commercial and economic diplomacy provides a vital support structure 
for U.S. companies to operate successfully, but also to positively 
contribute to the region's economic development and competitiveness.
    U.S. presence in the region is particularly important given that 
most economies have lost economic competitiveness as they have 
increased their dependence on imports, including food commodities, and 
tourism revenues. These countries suffer from the vulnerabilities 
common to small island economies: a lack of energy resources, large 
trade deficits, limited foreign direct investment, expensive regional 
and global transportation costs, vulnerability to natural disasters and 
the effects of climate change. While Caribbean economies may export 
duty-free to the United States through the Caribbean Basin Initiative 
(CBI), CBI exports have dropped over the past several years as the 
region's manufactured goods have become less competitive against 
cheaper goods from other markets.
    The United States will continue to work with Eastern Caribbean 
nations as they seek to diversify their economies beyond tourism and 
commodities, equip their citizens to compete in global markets, reduce 
their crushing external debts, and adopt new forms of energy that will 
reduce manufacturing costs and vulnerability to oil price shocks. 
Additionally, if confirmed, I will work to ensure that Eastern 
Caribbean countries continue to seek opportunities to exploit their 
duty-free access to the United States under CBI, and to further reduce 
regulatory and technical barriers in their countries that reduce their 
attractiveness for inward foreign investment.

    Question. Last year, the Obama administration launched a strategy 
aimed at supporting energy security in the Caribbean. Given current low 
world oil prices, has interest in the region in pursuing that strategy 
waned? What specifically will you do as Ambassador to increase ``Access 
to Finance, Good Governance, and Diversification'' as foreseen by the 
energy security strategy?

    Answer. Since Vice President Joe Biden launched the Caribbean 
Energy Security Initiative in June 2014, the United States has played a 
leadership role in promoting energy reform to make the region more 
attractive to foreign direct investment, as well as quickening the 
diversification of energy sources and the pace at which new, renewable 
forms of energy can be adopted.
    While lower oil and gas prices have provided Caribbean nations with 
some reduction in energy costs, they have come to recognize that their 
long-term prosperity is tied to a mix of energy sources that can 
provide price and supply stability, with the goal of reducing energy 
costs for businesses and consumers. This recognition was evident at the 
White House Caribbean Energy Security Summit hosted in January by the 
Vice President, as well as in the President's meeting with Caribbean 
leaders in Jamaica last April, where leaders committed to take concrete 
steps to promote their energy security.
    The recent inauguration of the Caribbean Center for Renewable 
Energy and Energy Efficiency in Bridgetown, Barbados, where the Center 
will serve to support Caribbean countries in fostering sustainable 
energy investments and markets, is evidence of how U.S. leadership can 
galvanize action to tackle regional challenges in the Caribbean. If 
confirmed, I will work actively with Caribbean leaders to help them 
prioritize their legislative and regulatory efforts to adopt new forms 
of renewable energy, diversify their energy sources, develop the 
regulatory structures that will attract companies and technologies and 
strengthen their energy infrastructure, reduce prices, and provide 
long-term energy security and stability.
    I would also seek to leverage the U.S. Government assistance that 
is being provided through the Caribbean Energy Security Initiative 
(CESI). For instance, under CESI, the Overseas Private Investment 
Corporation (OPIC) has sought to assist with private sector funding for 
clean energy projects, the U.S. Trade Development Agency is working to 
identify and study the feasibility of energy related initiatives for 
investors across the region, and the Department of State's Bureau of 
Energy Resources is providing technical assistance on regulatory, 
engineering, procurement, and commercial matters.

    Question. What is the current extent of drug trafficking through 
the Eastern Caribbean region? To what extent is limited U.S. assistance 
under the Caribbean Basin Security Initiative actually able to help the 
Eastern Caribbean to cope with the drug problem?

    Answer. The Eastern Caribbean and broader Caribbean serve as a 
transshipment region for drugs destined for U.S., African, and European 
markets. Its strategic location with hundreds of islands and cays, 
combined with a large volume of commercial and noncommercial air/
maritime movement, makes the Caribbean an attractive region for drug 
trafficking organizations (DTOs) seeking to conceal their illicit 
activities.
    Approximately 10 percent of cocaine trafficked to the United States 
from South America transited the Caribbean corridor in the first half 
of 2015, up from 4 percent in 2011, the majority of which was moved by 
maritime conveyance. Several factors may account for the increase in 
drug trafficking through the Caribbean, from the impact of enhanced 
enforcement efforts along the Central America/Mexico corridor and on 
the U.S. Southwest border to high rates of go-fast boat transport 
success from Colombia and Venezuela through the Dominican Republic to 
Puerto Rico.
    To counter the increase in drug trafficking, the United States 
targets DTOs operating in the Caribbean to stem the flow of illegal 
drugs, while expanding the level of cooperation with partner nations 
through security cooperation initiatives. The goal is to strengthen law 
enforcement and judicial institutions, combat money laundering and 
corruption, reduce the production and consumption of drugs, and 
generally reduce violence.
    Through the Caribbean Basin Security Initiative (CBSI), we seek to 
reduce narcotics trafficking through programming focused on law 
enforcement capacity-building, border and port security, justice sector 
reform, and drug demand reduction. Key CBSI activities include efforts 
to equip, train, and provide technical assistance to counternarcotics 
authorities; promote regional coordination on maritime interdiction 
through multilateral exercises; empower countries to dismantle DTOs 
through tools such as civil asset forfeiture; and support for partner 
nation maintenance and sustainment capabilities of host-nation 
purchased and U.S.-provided maritime and aviation interdiction assets.

    Question. Many Caribbean nations have seen increases in violent 
crime and murder in recent years. What approaches have countries been 
taking to curb the violence, and has there been any diminishment in 
murder rates? To what extent does the Caribbean Basin Security 
Initiative (CBSI) help these countries improve citizen security?

    Answer. Crime rates have generally risen over the last several 
years across the Caribbean, including homicides. Caribbean nations, 
including those in the Eastern Caribbean, have recognized the need to 
do more to strengthen the capacity and effectiveness of their police 
forces and judicial systems to both prevent crime and investigate 
criminals who do their citizens harm. They are concurrently working to 
address the underlying, root causes of crime and insecurity, 
particularly among youth and those residing in marginalized 
communities.
    Throughout the region, leaders are working to prevent the 
trafficking of firearms, which are used in the commission of all forms 
of crimes. They are trying to reduce the unacceptable backlog of 
accused awaiting trial, which dramatically reduces the deterrent effect 
that speedy trials and the certainty of accountability has on 
criminals. Related to the strengthening of prosecutorial and judicial 
capacity, countries are revisiting bail for violent criminal offenders, 
many of whom are released and subsequently commit additional crimes 
while awaiting trial. Eastern Caribbean leaders also recognize that 
incarceration of juvenile, nonviolent offenders makes little sense, and 
are pursuing alternate and diversionary sentencing programs to help 
youth reintegrate into society as lawful, productive citizens. While 
these nascent efforts ultimately should reduce the prevalence of 
violent crimes, citizens continue to push their governments to take 
further action to bring about security and justice.
    Through CBSI, the U.S. Government is supporting the efforts of 
Caribbean governments as they seek to bolster the security of their 
citizens and build more inclusive and resilient communities. CBSI 
represents an integrated approach that links citizen security, social 
development, and economic prosperity. CBSI assistance is combating the 
drug trade and other transnational crimes that threaten regional 
security with the goal of substantially reducing illicit trafficking, 
increasing public safety, strengthening the rule of law, and addressing 
the underlying social and economic root causes of crime.

                               __________
             ambassador-designate taglialatela's responses 
                    to questions from senator rubio
    Question. Antigua & Barbuda and St. Vincent & the Grenadines are 
destination and transit countries for men, women, and children 
subjected to sex trafficking and forced labor. Legal and undocumented 
immigrants from the Caribbean region as well as from Southeast Asia 
comprise the population most vulnerable to trafficking. None of the 
countries have taken explicit and concrete steps to stop trafficking in 
persons.

  <diamond> If confirmed, what is your plan in pressuring these 
        countries to reform their justice system to stop sex 
        trafficking and forced labor? Are you willing to publicly 
        identify and rebuke countries under you purview that fail to 
        make real strides in eliminating human trafficking?

    Answer. If confirmed, furthering efforts to combat trafficking in 
persons (TIP) will represent one of my top priorities in the Eastern 
Caribbean. We are engaged with the Governments of Antigua & Barbuda and 
St. Vincent and the Grenadines, both of which are on the Tier Two Watch 
List, to encourage them to redouble their efforts to meet the standards 
and recommendations in the 2015 TIP Report. These countries should 
vigorously prosecute human trafficking, identify trafficking victims, 
and provide assistance to victims.
    Both nations are working to address the issues that were identified 
in the 2015 TIP Report. For example, Antigua & Barbuda amended its 
anti-TIP law. St. Vincent and the Grenadines recently made its first 
human trafficking arrest and indictment, identified additional 
trafficking victims and provided services, and finalized its national 
antitrafficking action plan for 2016. Both countries are subject to the 
automatic downgrade provision of the Trafficking Victims Protection Act 
(TVPA), and recognize the serious nature and impact of a downgrade to 
Tier 3.
    These nations, as do many of their neighbors in the Eastern 
Caribbean, are constrained in their respective capacities to address 
this critical issue, including limited law enforcement and 
investigative capacity, overburdened prosecutors and courts, and a 
scarcity of professional capacity to provide victims' services. Through 
the Caribbean Basin Security Initiative and related Department of 
State-funded TIP initiatives, the U.S. is working across the Eastern 
Caribbean to boost TIP prevention, identification, prosecution, and 
victim protection capabilities.
    In addition to targeted programming for police forces and judicial 
systems to allow them to investigate and prosecute traffickers, we are 
working with NGOs to build their capacity to report instances of 
trafficking and provide appropriate services to victims. Department of 
State projects have proven effective in the past, particularly in 
developing training manuals for law enforcement and victim's services 
projects.
    If confirmed, I will seek additional resources that can be offered 
to further the progress we have made. Additionally, if confirmed, I 
will make TIP engagement a top area of discussion in my interaction 
with regional leaders, civil society, and the media to make sure 
everything possible is being done to address the TIP issue with the 
ultimate goal of eliminating human trafficking in the region.

    Question. The Caribbean Basin Security Initiative (CBSI) is part of 
the U.S. security strategy focused on citizen safety throughout the 
region. How do you see the U.S. engagement with the CBSI countries in 
your region? Are there any ways the U.S. can improve security 
cooperation with countries in your region? Do you feel that any of the 
countries in your region are not adequately engaging in 
counternarcotics/firearms trafficking interdiction?

    Answer. Ensuring citizen security in the Caribbean is vital to U.S. 
national security, as well as to the stability and economic development 
of our regional partners. Through the Caribbean Basin Security 
Initiative (CBSI), the U.S. Government is empowering Caribbean 
governments to better safeguard the security of their citizens and 
build more inclusive and resilient communities through an integrated 
effort that links citizen security, social development, and economic 
prosperity. U.S. assistance through CBSI targets transnational criminal 
organizations involved in the trafficking of drugs, people, and 
firearms through the region by strengthening the capacity and 
effectiveness of the region's police forces and judicial systems, to 
both prevent crime and investigate criminals who do their citizens 
harm.
    Eastern Caribbean nations are neither source countries for cocaine 
nor firearms, yet they are disproportionately bearing the brunt of the 
international trafficking of firearms and narcotics. Despite their 
limited law enforcement and interdiction capabilities, Eastern 
Caribbean nations are working effectively with the United States to 
prevent the use of their national territories and littoral waters by 
drug trafficking organizations (DTO) and transnational criminal 
organizations.
    Through both CBSI training and effective working relationships with 
the Bureau of Alcohol Tobacco and Firearms (ATF) and Immigration and 
Custom Enforcement's Homeland Security Investigations (HSI), Eastern 
Caribbean nations are investigating and prosecuting to conviction 
firearms traffickers. Both ATF and HSI have successfully prosecuted 
U.S. traffickers, who, in many cases, are the source of illicit 
firearms in the Caribbean.
    Eastern Caribbean countries also work closely with the Drug 
Enforcement Administration and the U.S. Coast Guard on the interdiction 
of cocaine across the region. They are also willingly partnering with 
the United States as we work to promote regional coordination on 
strengthened border security; maritime interdiction through 
multilateral exercises; empower countries to dismantle DTOs through 
tools such as civil asset forfeiture; and take steps to support partner 
nation maintenance and sustainment capabilities of host nation-
purchased, and U.S.-provided, maritime and aviation interdiction 
assets.

                               __________

Responses of John D. Feeley, Nominated to be Ambassador to the Republic 
         of Panama, to Questions from Members of the Committee

                ambassador-designate feeley's responses 
                    to questions from senator corker
    Question. In your opening statement you make reference to 
addressing human trafficking in Panama. You also highlight the 
importance of the U.S. expatriate community in Panama; expanding 
foreign direct investment; and, the integrity of our interconnected 
banking and financial systems.

  <diamond> Can you please tell us more regarding your concerns and 
        priorities in these areas?

    Answer. Human Trafficking: The Panamanian Government is making 
significant efforts to comply fully with the minimum standards for the 
elimination of trafficking in persons. Panamanian authorities 
identified more trafficking victims in 2014 (25 vice 16 the previous 
year), convicted five sex traffickers, and continued public awareness 
efforts. If confirmed, I will continue to press the Panamanian 
Government to enhance anti-TIP efforts, including through increased 
specialized victim services and intensified law enforcement efforts to 
investigate and prosecute trafficking crimes and convict traffickers.
    FDI and American Investment: The Panamanian Government has promoted 
economic growth over the last decade through open market policies and 
by actively encouraging trade and foreign direct investment (FDI). The 
United States--Panama Trade Promotion Agreement (TPA) requires that 
U.S. investors receive fair, equitable, and nondiscriminatory 
treatment, and that both parties abide by international law standards, 
such as for expropriation, compensation, and free transfers.
    If confirmed, I will seek to ensure these transparent guidelines 
are adhered to. I will also use every applicable provision of the 
Bilateral Investment Treaty and Trade Promotion Agreement to work for 
fair treatment of U.S. businesses and citizens in Panama. I will work 
as Panama's partner to help strengthen their democratic institutions, 
especially in the justice sector, to provide opportunities for 
Americans who want to work, trade, travel, and live in Panama.
    My concern for U.S. investment in Panama is that Panama's economic 
openness and weak financial oversight make it an attractive transit 
point for money laundering. The international financial community 
shares this view. Panama is currently under ``targeted review'' by the 
Financial Action Task Force because of its antimoney laundering 
deficiencies. The good news is that the Varela administration has 
expressed and demonstrated the political will to do something about it. 
In the past year, Panama has passed and implemented a number of laws to 
strengthen its antimoney laundering capabilities and compliance with 
U.N. Sanctions Regimes. If confirmed, I will continue U.S. efforts to 
help Panama build a more effective antimoney laundering regime.

    Question. What has been the effect of the U.S. bilateral free trade 
agreement with Panama? What effect might the Trans-Pacific Partnership 
(TPP) have on U.S. trade and investment relations with Panama?

    Answer. The effect has been to transform a strong trade 
relationship into an even stronger one. Since the U.S.-Panama Trade 
Promotion Agreement (TPA) entered into force in October 2012, American 
exports have increased every year, totaling $10.3 billion in goods in 
2014. Panama was the United States 30th largest goods export market in 
2014.
    The TPA supports American jobs, expands markets, and enhances U.S. 
competitiveness, by guaranteeing access to Panama's nearly $30 billion 
services market (70 percent of GDP), including in priority areas such 
as financial services, the telecommunications sector, computer sales, 
and distribution networks. U.S. companies also have a strong presence 
in the express delivery, energy, environmental, and professional 
services area of Panama's economy.
    If confirmed, I will continue to work with the Government of Panama 
and the Office of the U.S. Trade Representative, to further strengthen 
market access for U.S. companies, and to ensure U.S. products continue 
to be the preferred choice for Panamanian consumers.
    Although Panama is not a member of the TPP, it already enjoys 
excellent access to the U.S. market through the TPA and has free trade 
agreements and strong trade relationships with many TPP members. In 
addition, the Pacific alliance, a growing economic grouping in Latin 
America, has offered Panama a path to accession. Though Panama has not 
yet formally entered the alliance, we would support their entry.

    Question. Panama's ex-president, Ricardo Martinelli, faces 
prosecution for corruption as do other former officials including eight 
former Cabinet Ministers who have been investigated or charged for acts 
of corruption. A Panamanian Supreme Court justice was convicted of 
corruption.

  <diamond> How deep is such corruption in Panama? What role does 
        transnational crime play in exploiting such corruption?

    Answer. The United States is aware of allegations against 12 
current and former Panamanian administration officials on charges of 
corruption. The United States supports Panama's efforts to improve 
governmental transparency and accountability by taking judicial action 
to prevent, investigate, and punish corruption.
    Panama ranks 94th out of the 175 countries on Transparency 
International's perceptions of corruption ranking. Links to 
transnational crime, especially money laundering, help enable criminal 
activity in Panama. Fortunately, Panamanian officials have made 
addressing corruption a priority. The 17th International Anti-
Corruption Conference will take place in Panama City in December 2016, 
and will be an important opportunity for Panama to demonstrate its 
commitment to lowering corruption levels in both the public and private 
sectors.
    If confirmed, I will work to support the strengthening of 
democratic institutions in Panama that are focused on serving its 
citizens while also being vigilant for any cases of corruption having a 
direct impact upon American citizens. We share Panama's goal of 
fortifying institutions to detect, investigate, prevent, and punish 
corrupt acts. We will continue to partner on transnational criminal 
cases, and I will continue to encourage Panama to fully implement the 
accusatory justice system throughout the country.

    Question. How capable are Panama's law enforcement agencies and its 
judiciary in addressing transnational crime and corruption?

    Answer. The United States shares the concerns that President Varela 
and ordinary Panamanian citizens express about the levels of crime, 
violence, and drug trafficking through Panama's territory. As 
demonstrated by the current investigations and prosecutions of former 
officials on corruption charges, Panama's security and judicial 
institutions are increasingly capable of tackling such cases.
    Corruption is one of the biggest problems facing Central America. 
The United States supports Panama's efforts to investigate and 
prosecute officials accused of corruption. We will also encourage 
Panama to finalize the implementation of the accusatory justice system 
in the important provinces of Colon and Panama in 2016.
    Through a variety of vetted units, training, and technical 
assistance, the United States is working closely with the government 
and people of Panama to build stronger, more transparent public 
institutions and foster good governance. In 2015, CARSI partnered with 
Panamanian police to launch a nationwide, data-driven, crime mapping 
and analysis tool based on the NYPD's COMPSTAT (comparative statistics) 
model.
    If confirmed, I will continue to support anticorruption programs 
throughout the security and justice sectors, including a robust program 
to aid Panama in its transition to the accusatory justice system. The 
U.S. Strategy for Engagement in Central America commits to deepening 
this focus on governance and rule of law throughout the region and 
Panama in years to come.

                               __________
                ambassador-designate feeley's responses 
                    to questions from senator rubio
    Question. According to the 2015 TIP Report, Panama is a source, 
transit, and destination country for men, women, and children subjected 
to sex trafficking and forced labor. Most Panamanian trafficking 
victims are exploited in sex trafficking in the country.

  <diamond> If confirmed, how do you plan to engage with the Government 
        of Panama and push them to develop a more robust 
        antitrafficking program in the country?

    Answer. The Panamanian Government is making significant efforts to 
comply fully with the minimum standards for the elimination of 
trafficking in persons. The 2015 Trafficking in Persons report upgraded 
Panama to Tier 2 from Tier 2 Watchlist in recognition of its efforts to 
combat trafficking in persons. Panamanian authorities identified more 
trafficking victims in 2014 (25 vice 16 the previous year), convicted 
five sex traffickers, and continued public awareness efforts. If 
confirmed, I will continue to press the Panamanian Government to 
enhance anti-TIP efforts, including through increased specialized 
victim services and intensified law enforcement efforts to investigate 
and prosecute trafficking crimes and convict traffickers.
    Panamanian authorities acknowledge this weakness, and are committed 
to working to address it. Vice President Isabel de St. Malo, who serves 
concurrently as Panama's Foreign Minister, has made a public pledge to 
coordinate better Panama's ability to combat TIP.
    If confirmed, I will continue efforts to help Panama increase 
specialized victim services. I will also encourage Panama to intensify 
law enforcement efforts to investigate and prosecute both labor and sex 
trafficking crimes and to convict and sentence traffickers, including 
any allegedly complicit government officials. I will also continue to 
develop and institutionalize government-provided antitrafficking 
training for relevant officials.

    Question. Panama's strategic geographic location, dollarized 
economy, and status as a regional financial, trade, and logistics 
center make it a target for money launderers. Organized crime, 
including narco traffickers, uses the Panamanian legal system to their 
benefit to launder their illicit proceeds.

  <diamond> What will your message be to the Government of Panama on 
        reforming their laws in regards to money laundering?

    Answer. Panama is widely regarded by international authorities as 
vulnerable to money laundering and is currently on ``targeted review'' 
by the Financial Action Task Force (FATF) as a country that has 
antimoney laundering/counter financing of terrorism (AML/CFT) 
deficiencies. However, under an effort coordinated by Embassy Panama 
and the Department of State, the Departments of Justice and Treasury 
are helping Panama build a more effective antimoney laundering regime. 
Panama significantly strengthened its autonomous Financial Intelligence 
Unit in December 2014 after the FATF placed the country on ``the Grey 
List'' in January 2014, following its assessment that Panama's AML 
procedures were weak. In the past year, Panama passed and implemented a 
number of laws to strengthen its antimoney laundering capabilities and 
compliance with U.N. Sanctions Regimes.
    If confirmed, I will continue working with Panama to strengthen its 
ability to detect, investigate, and prosecute money-laundering and 
terrorist-financing cases.

    Question. Panama has become an important connection for shipping 
narcotics to the U.S. and other countries. The International Narcotics 
Control Strategy has reported that traffickers have smuggled narcotics 
through the country's uncontrolled transportation system, such as 
airfields, coastlines, containerized seaports and highways.

  <diamond> What steps will you take to help expand cooperation between 
        U.S. and Panamanian law enforcement on interdicting narcotics 
        bound for the U.S.?

    Answer. The United States shares the concerns that President Varela 
and ordinary Panamanian citizens express about the levels of crime, 
violence, and drug trafficking through Panama's territory. As 
demonstrated by the investigations and prosecutions of former officials 
on corruption charges, Panama's security and judicial institutions are 
increasingly capable of tackling such cases. As drug interdiction 
partners, Panama is one of the best in the region, seizing an 
impressive 35 metric tons of cocaine in its coastal waters and 
territory.
    Through a variety of vetted units, training, and technical 
assistance, the United States is working closely with the government 
and people of Panama to build stronger, more transparent public 
institutions and foster good governance. In 2015, the Department of 
State Bureau of International Narcotics and Law Enforcement partnered 
with Panamanian police to launch a nationwide, data-driven, crime 
mapping and analysis tool based on the New York Police Department's 
COMPSTAT (comparative statistics) model. We will also encourage Panama 
to finalize the implementation of its accusatory justice system in the 
important provinces of Colon and Panama in 2016.
    The U.S. Strategy for Engagement in Central America commits to 
deepening this focus on governance and rule of law throughout the 
region and Panama in years to come. If confirmed, I will continue to 
support all these programs throughout the security and justice sectors, 
including an intensive effort to aid Panama in its transition to the 
accusatory justice system.

    Question. We have seen that individual sanctions against human 
rights violators in Venezuela have been effective tools. These claims 
have been echoed by many Venezuelan civil society groups and former 
government officials because they fear losing the privilege to travel 
and visit the U.S.

  <diamond> Do you agree?
  <diamond> Why hasn't the U.S. Government sanctioned more human rights 
        violators in Venezuela?

    Answer. Sanctions represent one instrument among many to implement 
U.S. foreign policy. Each determination on whether and when to impose 
targeted measures, including visa restrictions or asset blocking, takes 
into account the specific factual information we have on the 
individuals at issue in light of the requirements under U.S. law for 
imposing sanctions. Our implementation of sanctions is also carried out 
in the context of U.S. foreign policy interests, in consultation with 
all relevant agencies, including respect for human rights, democratic 
governance and pluralism, and regional security and stability.
    Separately, since July 2014, the Department has restricted visa 
eligibility for certain Venezuelans believed to be responsible for, or 
complicit in, human rights abuses and undermining democratic 
governance, including public corruption. The Secretary of State took 
these steps pursuant to Section 212(a)(3)(C) of the Immigration and 
Nationality Act.
    We will continue to monitor the situation in Venezuela, and stand 
ready to take action against other individuals as additional 
information becomes available and is assessed to meet the criteria for 
sanctions.

                               __________

 Responses of Jean Elizabeth Manes, Nominated to be Ambassador to the 
  Republic of El Salvador, to Questions from Members of the Committee

                ambassador-designate manes's responses 
                    to questions from senator corker
    Question. El Salvador is a pilot country for the U.S. Partnership 
for Growth initiative. The Partnership for Growth is supposed to focus 
on priorities identified with the Salvadoran Government and private 
sector to strengthen the country's competitiveness and increase 
investment in the country.

  <diamond> How has this pilot effort fared? What has it accomplished 
        to date?

    Answer. The Partnership for Growth (PFG) has laid an important 
foundation for the new U.S. Strategy for Engagement in Central America, 
paving the way for continued investments through institutional 
capacity-building, passage of key legislation, creation of guiding 
policies, and establishment of new lines of effort in prosperity 
programming. Thanks to this close bilateral coordination, the 
Salvadoran Government has advanced its strategic planning capacity and 
coordination with civil society, international donors, and the private 
sector.
    The Salvadoran Government has taken concrete steps to strengthen 
competitiveness and increase investment in the country. For example, it 
established a public-private Growth Council under PFG to create 
permanent dialogue between the government and private sectors. Since 
2012, the government also passed a package of five pro-investment laws, 
as well as the Access to Public Information Law and the Asset 
Forfeiture Law.
    In addition, the government created guiding policies, such as the 
Establishment of the National Council for Citizen Security and crafted 
the Plan El Salvador Seguro security strategy, the National Violence 
Prevention Plan of 2014, and formed two police task forces: the 
Business Crimes Task Force (Anti-extortion Task Force) and the Crimes 
on Public Transportation Task Force, both of which address issues that 
hinder investment and competitiveness.
    Under PFG, the Salvadoran Government has taken responsibility for 
sustainable, continued implementation of efforts initiated through 
USAID and INL investments, for example the Salvadoran Institute for 
Professional Training. If confirmed, I will strongly encourage the 
Salvadoran Government to sustain and continue implementation of PFG 
efforts in support of the new U.S. Strategy for Engagement in Central 
America.

    Question. El Salvador is experiencing severe gang-related violence 
and murders. Impoverished people are under constant threat must pay 
money extorted by gangs. People who receive remittances from the U.S. 
are targeted by gangs. Current U.S.-supported antigang efforts create 
small islands of safety. On a limited basis, we help law enforcement 
and judicial authorities protect citizens and prosecute criminals.

  <diamond> But, is it really possible for the Salvadoran Government to 
        take these approaches to scale? If so, how?

    Answer. If confirmed, I will ensure continued integration of USAID 
and INL programs under our Place-Based Strategy to focus our assistance 
efforts in the same high-crime communities identified by the Salvadoran 
Government in its Plan El Salvador Seguro in order to maximize the 
impact of our joint efforts.
    If confirmed, I will also urge the Salvadoran Government to 
collaborate more strategically with the private sector to fund 
important security initiatives under their plan, with the aim of 
amplifying their efforts.
    The Salvadoran private sector has already shown strong interest in 
investing resources and partnering with the Salvadoran Government, 
alongside USAID and INL, to tackle security concerns that have a direct 
effect on the investment climate. For example, some private 
associations have donated land and architectural and engineering 
services for police stations and youth centers.

    Question. Like other countries in the region, El Salvador faces 
challenges from corruption. Is it possible for El Salvador to work with 
the U.N. with U.S. support as has happened in Guatemala to investigate 
and prosecute corruption? Wouldn't this also help address concerns 
regarding politically motivated anticorruption prosecutions in El 
Salvador?

    Answer. Through our diplomatic engagement and assistance programs, 
the United States continues to support both government and civil 
society efforts to ensure the application of the rule of law and 
effective governance in El Salvador, emphasizing the need for greater 
transparency and accountability.
    The International Commission Against Impunity in Guatemala (CICIG) 
played a unique, significant, and transformative role in Guatemala. 
Support from a similar independent anticorruption structure in El 
Salvador could advance efforts to ensure accountability.
    That said, there are many ways of achieving these goals. It is up 
to the Salvadoran people to determine the best way forward.
    President Sanchez Ceren and the Attorney General have publicly 
rejected an independent external entity like CICIG, stating existing 
Salvadoran institutions are combating corruption and impunity.
    If confirmed, I will give priority to promoting concrete actions by 
the Salvadoran Government that produce real results in fighting 
corruption.
    I also look forward to working with the Embassy team, including 
USAID and INL staff, to press forward with U.S. efforts that strengthen 
institutions, share best practices, and develop new initiatives to 
combat corruption and end impunity.

    Question. The Inter-American Development Bank is supporting efforts 
by the Government of El Salvador to identify and budget significant on-
budget resources to implement the regional Alliance for Prosperity 
Initiative. In the end, each country needs to direct its own resources 
to arrive at long-term solutions.

  <diamond> How has the IDB's effort been received by the Government of 
        El Salvador and how will you encourage this effort as 
        ambassador?

    Answer. The Government of El Salvador is fully supportive of the 
involvement of the IDB as it seeks to implement the ambitious plan 
outlined in the Alliance for Prosperity roadmap.
    The IDB serves as the Executive Secretariat for the Alliance for 
Prosperity and lends its expertise to help Northern Triangle 
governments, including El Salvador, tackle the long-standing and 
systemic issues driving outward migration.
    At the working level, Embassy San Salvador remains in close contact 
with local IDB representatives. If confirmed, I will continue the 
efforts to advance coordination between all stakeholders, especially 
the IDB, supporting successful outcomes of both the Alliance for 
Prosperity and the U.S. Strategy for Engagement in Central America.

    Question. Has El Salvador embraced genuine trade capacity building, 
such as removing non-tariff barriers to trade, to fully take advantage 
of the Central America Free Trade Agreement? What priorities will you 
pursue in this regard as ambassador?

    Answer. El Salvador was the first country to ratify CAFTA-DR and 
its trade volume has increased as a result of CAFTA-DR. However, more 
can be done and the United States continues to work with the Salvadoran 
Government to make improvements in technical areas, such as onerous 
labeling requirements, and improving the efficiency of customs 
procedures. Increasing and facilitating regional trade will be key to 
improving El Salvador's economic situation. Accordingly, if confirmed, 
I will continue the work of USAID, INL, MCC, Department of Labor, the 
USTR, and others to help the Government of El Salvador harmonize and 
synchronize regulations, improve border infrastructure, and implement 
best practices for customs inspections in order to better integrate the 
region economically.
    El Salvador is working on reducing cross-border costs as well. 
Through a targeted initiative to improve interagency coordination among 
Customs, Police/Anti-narcotics Division, and Immigration, El Salvador 
reduced border crossing times by 14 percent in the last 6 months at its 
two main border crossings to Guatemala (La Hechadura) and Honduras (El 
Amatillo). For precleared exports from Free Trade Zones, border-
crossing times for goods at El Salvador's principal land border to 
Guatemala (Anguiatu) fell from over 10 hours to less than 1 hour. We 
also have productive cooperation with the Salvadorans on our Small 
Business Network of the Americas initiative which, on a practical 
scale, assists small businesses in both of our countries to improve 
operations and access markets. If confirmed, I will give high priority 
to getting results from these in policy measures to attract investment 
and build trade capacity.

                               __________
                ambassador-designate manes's responses 
                    to questions from senator rubio
    Question. Organized crime in El Salvador is a serious problem. 
There are an estimated 25,000 gang members at large in El Salvador, 
with many in Mara Salvatrucha (MS 13) and their rival Calle 18 (18th 
Street). El Salvador is set to eclipse Honduras as the country with the 
highest homicide rate in the world. There have already been over 5,700 
murders this year and the murder rate is now the highest it has been 
since the country's civil war.

  <diamond> How is the El Salvador Government working to reduce the 
        violent crime rate and what do you plan to do to help support 
        these efforts? What is your assessment of the threat that 
        trans-national gangs in El Salvador pose to the United States?

    Answer. Security is a critical concern for El Salvador, and if 
confirmed, I will make it my highest priority. The Government of El 
Salvador launched its new security strategy, Plan El Salvador Seguro, 
in 2015. This plan focuses most of its efforts on community-based 
violence prevention coordinated with law enforcement measures, victims' 
assistance, reinsertion and rehabilitation programs, and efforts to 
strengthen rule of law institutions. At the outset, the plan focuses on 
10 of the most critical municipalities, but the Salvadoran Government 
plans to extend it to the top 50 most violent municipalities. As a 
complement to the plan, the National Civil Police launched a 5-year 
strategy focused on community policing and intelligence-led policing to 
improve investigation techniques and ensure better coordination among 
law enforcement institutions and other government agencies. If 
confirmed, I will urge the Salvadoran Government to implement its 
security plans as rapidly and effectively as possible.
    To date and with USAID support, the Salvadoran Government has 
created municipal violence prevention committees and USAID is working 
in more than 33 high-crime municipalities, supporting crime prevention 
councils and prevention plans, including a network of more than 118 
outreach centers for at-risk youth. USAID also provided basic training 
in community policing to nearly 100 percent of the police force. 
According to official police data, there has been a 66-percent drop in 
homicides in 2015 compared to 2014 in 76 communities where USAID is 
working most comprehensively in violence prevention. USAID is 
realigning its programs to support the government's Plan El Salvador 
Seguro's 10 priority municipalities, fully integrating activities 
focused on violence prevention, criminal justice reform, and economic 
growth. If confirmed, I will also support and leverage USAID and 
Department of State programs under a place-based approach that 
integrates law enforcement and prevention in El Salvador's most violent 
neighborhoods.
    The U.S. Government is also helping the Government of El Salvador 
expand its efforts to reduce crime and violence through support for 
specialized units. The State Department's Bureau of International 
Narcotics and Law Enforcement Affairs (INL) provided technical support 
to help the Government of El Salvador establish an antiextortion task 
force that has achieved a 96-percent conviction rate. This conviction 
rate stands in stark contrast to the national criminal conviction rate 
which is estimated at 10 percent. The government replicated the task 
force model in Santa Ana and San Miguel, gaining national coverage to 
combat extortion. If confirmed, I will continue these efforts and also 
urge the government to collaborate more strategically with the private 
sector to fund security initiatives under the Salvadoran Government's 
national strategy.
    Transnational gangs in El Salvador pose a threat to the United 
States. The MS-13 gang has members throughout the United States and 
often colludes with gang leaders imprisoned in El Salvador. Salvadoan 
collaboration among INL-supported prison intelligence units, the FBI, 
ATF, DHS, and U.S. police, have led to MS-13 gang members being charged 
with homicide and numerous other crimes, including gang recruitment and 
human and narcotics trafficking. In October and November, the FBI 
arrested 12 gang members for homicide in Newark and Boston. In 
September, an MS-13 gang member was extradited to the United States for 
two murders committed in 2010 in Nevada. If confirmed, I will ensure 
this close collaboration among law enforcement agencies continues.

    Question. The ``Plan of the Alliance for Prosperity in the Northern 
Triangle'' outlines working guidelines and commitments by regional 
leaders to promote Security, improve the work and business climate, 
ensure more effective government, create jobs, reduce poverty, improve 
the quality of services, and expand economic opportunities.

  <diamond> What improvements have been made with reforming the 
        economic system to open the country to foreign investment and 
        reducing burdensome regulations?
  <diamond> The pledge that President Obama made for $1 billion is 
        unlikely to be fully funded by Congress for FY16. Based on the 
        reduced funding that will be available, what would your 
        recommendation be for where to concentrate U.S. funding in El 
        Salvador?

    Answer. Since the announcement in 2014 by the Salvadoran, 
Guatemalan, and Honduran governments to launch the Alliance for 
Prosperity--a key component of which is to improve the business and 
investment environment in the region--the Salvadoran Government has 
taken concrete steps to attract investment. The Inter-American 
Development Bank reports El Salvador has proposed its own investment of 
more than $1 billion in 2016 in Alliance for Prosperity projects.
    With USAID support, the Salvadoran Ministry of Finance has drafted 
tax reforms to reduce tax evasion and avoidance. El Salvador increased 
tax revenues by 30 percent from 2010 to 2014 through improved 
enforcement of tax policies and more transparent budgeting. The 
Salvadoran Government also launched an online public expenditure 
tracking system and a Fiscal Transparency Web site, accessible to the 
public, to provide budget information. Finally, the Salvadoran 
Government signed a Multilateral Convention on Mutual Administrative 
Assistance in Tax Matters in June to improve its ability to coordinate 
internationally to prevent offshore tax evasion.
    El Salvador is taking other steps such as working toward 
establishing a ``single window'' for investors, as recommended by the 
U.S. Chamber of Commerce. It has also developed a Web site to register 
businesses online and the National Investment Office (ONI) is helping 
investors register with the appropriate Salvadoran Government 
institution.
    Key to facilitating trade, El Salvador reduced border crossing 
times at its two main crossings with Honduras and Guatemala by 14 
percent. In the World Bank's Doing Business Report, El Salvador rose 
from 97th of 189 countries evaluated in 2015, to 86th in 2016.
    If confirmed, I will work with the Government of El Salvador to 
ensure it fulfills its commitments under the Alliance for Prosperity 
that coincide with the overarching goals of our U.S. Strategy for 
Engagement with Central America: improving citizen security, building 
economic prosperity, and strengthening democratic institutions.
    The administration is convinced the FY 2016 request of $1B for the 
U.S. Strategy for Engagement in Central America is the best way to 
support the efforts of our Central American partners. The U.S. Strategy 
is a whole-of-government approach to address violence and crime 
challenges, lack of economic opportunity, and weak government 
institutions contribute to the underlying conditions driving 
undocumented migration. U.S. programs under the Strategy are integrated 
across multiple lines of effort. We will continue to prioritize El 
Salvador in the implementation of the Strategy, to support the needed 
reforms in governance, prosperity, and security. Given the ongoing 
security situation in El Salvador, programs to address violence, 
isolate gangs, and ignoring policing remain critical. However, we 
recognize economic and governance programs also play an important role 
in creating improved conditions in El Salvador.

    Question. According to the 2015 TIP report, El Salvador is a 
source, transit, and destination country for women, men, and children 
subjected to sex trafficking and forced labor. The Government of El 
Salvador does not fully comply with the minimum standards for the 
elimination of trafficking.

  <diamond> If confirmed, how do you plan to engage with the Government 
        of El Salvador and work with them to aggressively enforce their 
        antitrafficking program in the country?

    Answer. El Salvador remained a Tier 2 country in the 2015 
Trafficking in Persons (TIP) Report. A 2014 amendment to El Salvador's 
TIP law established the legal and budgetary framework for several 
interagency working groups and mandated better funding to expand 
victims' assistance. The amendment also significantly increased prison 
penalties for convicted traffickers.
    If confirmed, I will urge the government to implement its new law 
and to prosecute more aggresively and convict trafficking offenders.
    There have been eight convictions for trafficking crimes this year 
from prosecutions that began before the amendment was passed. If 
confirmed, I will urge the Salvadoran Government to investigate and 
prosecute cases through its U.S. assistance and vetted Anti-Human 
Trafficking Unit within the police (PNC).

    Question. 4,973 unaccompanied children were caught at the border in 
October trying to enter the United States, with the majority of them 
coming from El Salvador. What will your message be to the people of El 
Salvador in regards to attempting to migrate to the United States 
illegally? What steps do you feel that the Government of El Salvador 
can take to help reduce the flow of migrants?

    Answer. The U.S. Embassy in San Salvador and our colleagues in 
Public Affairs are working with the Salvadoran Government and its 
Embassy in Washington, DC, on information campaigns to discourage 
parents from sending their children on the dangerous journey to our 
border. However, many still take the journey, out of fear of violence, 
a lack of opportunities for education poverty, or economic survival. If 
confirmed, my message to the Salvadorans will be that they must all 
work together, with the United States as a committed partner, to help 
their government improve citizen security, build economic prosperity, 
and strengthen its democratic institutions so that parents and children 
can find opportunities for better lives in their home communities.
    To prevent undocumented migration, beginning in March 2015, the 
Salvadoran Government began requiring that all children, regardless of 
nationality, be accompanied by both parents when departing El Salvador 
or that one parent have the notarized permission of the other. If 
confirmed, I will urge the Government of El Salvador to enforce these 
requirements more consistently.
    I will also urge the Salvadoran Government to meet its commitments 
under the Alliance for Prosperity plan, which addresses the underlying 
factors driving migration.

                               __________

    Responses of Todd C. Chapman, Nominated to be Ambassador to the 
    Republic of Ecuador, to Questions from Members of the Committee

               ambassador-designate chapman's responses 
                    to questions from senator corker
    Question. What do you see as the most important aspects of the 
bilateral relationship with Ecuador and what steps would you take as 
Ambassador to put the relationship on a stronger footing?

    Answer. There are four key areas to our bilateral relationship with 
Ecuador: economic links, regional security, democracy and human rights, 
and people-to-people ties. If confirmed, I would work with Ecuadorian 
counterparts to build and move forward a positive bilateral agenda that 
reinforces our country's goals in all four categories. This includes 
identifying common areas of interest with the Ecuadorians, addressing 
the difficult bilateral issues in a clear and direct way, and building 
a relationship based on mutual respect that will facilitate discussions 
on more sensitive issues.
    We are already on a strong footing in many ways. Our people-to-
people ties continue to provide long-term strength to our relationship, 
with two-way educational exchanges thriving, and growing numbers of 
travelers to each country. Two-way trade has more than doubled since 
2008, to nearly $20 billion in 2014. While American investors have in 
some cases encountered serious difficulties in Ecuador, we remain 
Ecuador's largest trading partner and our economic relationship 
continues to grow. U.S. and Ecuadorian law enforcement and security 
officials are working cooperatively to counter regional threats posed 
by transnational crime, illicit narcotics, and trafficking in persons.
    We have had disagreements with the Ecuadorian Government in recent 
years, and some of these issues will not be resolved easily. If 
confirmed, I will raise the issues that are holding back greater 
bilateral partnership with both Government of Ecuador officials and 
with the public, including democratic and human rights concerns and a 
level playing field for investors. While we have areas of disagreement, 
our common interests can drive the broader U.S.-Ecuador relationship in 
a constructive direction.

    Question. What are the State Department's recommendations to 
Ecuador to address human trafficking? Is addressing human trafficking 
potentially an area for increased bilateral cooperation?

    Answer. Ecuador fully recognizes that international cooperation is 
vital in addressing human trafficking, and this is an area where we 
hope to have increased bilateral cooperation. As you know, the 
Department's Trafficking in Persons Report documents government efforts 
to prosecute traffickers, protect victims, and prevent further 
trafficking and the Department uses a variety of programs to support 
such government efforts. In the past, we have provided training to 
Ecuadorian judges, prosecutors, police officials, and officials charged 
with providing assistance to trafficking victims. We will look for 
additional opportunities to continue and grow this cooperation with the 
Government of Ecuador in the future.
    In the 2015 Trafficking in Persons (TIP) Report, the State 
Department ranked Ecuador Tier 2 and made the following recommendations 
for specific goals and objectives to further the Government of 
Ecuador's antitrafficking efforts over the next year:

    (1) Strengthen the provision of specialized care services for 
trafficking victims--including for adults--in partnership with civil 
society organizations through increased funding.
    (2) Amend antitrafficking statutes so they do not penalize 
nontrafficking crimes in order to bring them in compliance with the 
2000 U.N. TIP Protocol.
    (3) Increase efforts to investigate and prosecute trafficking 
offenses and convict and punish traffickers, particularly for cases 
involving adult trafficking victims.
    (4) Hold criminally accountable public officials complicit in 
trafficking.
    (5) Develop and implement procedures for identifying trafficking 
victims among vulnerable populations, such as children and adults in 
prostitution or child and migrant workers.
    (6) Implement procedures to ensure identified victims are referred 
to care services.
    (7) Increase antitrafficking training for police officers, judges, 
labor inspectors, immigration officials, social workers, and other 
government officials, particularly to enhance victim identification.
    (8) Issue and implement guidelines to ensure officials consistently 
offer foreign victims legal alternatives to removal.
    (9) Enhance data collection and interagency coordination.

    I have worked on TIP issues in previous assignments--in Costa Rica, 
Bolivia, Mozambique, and Brazil--and if confirmed, commit to engage 
personally on this issue to advance our cooperation. Reducing 
trafficking in persons in Ecuador through enhanced partnerships will be 
a top priority.

    Question. What has been the impact on press freedom of frequent 
government fines, sanctions including forced corrections, and hostile 
rhetoric toward news coverage that is critical of the President 
Correa's government? What steps, if any, would you take to encourage 
freedom of the press in Ecuador if appointed Ambassador?

    Answer. We are concerned about increasing restrictions on freedom 
of expression in Ecuador because a vibrant civil society capable of 
free expression and association is a necessary component of any 
democracy. We share international concern over the Government of 
Ecuador's efforts to silence critical voices and restrict its citizens' 
access to certain information and ideas. The U.N., Organization of 
American States (OAS) rapporteurs, and many international human rights 
organizations have expressed similar concerns.
    We will continue speaking out, as we do all around the world, in 
support of essential democratic rights and fundamental freedoms. If 
confirmed, I look forward to meeting with representatives of the press, 
civil society, and the government regarding this critical issue. With 
all interlocutors, I will highlight the importance of preserving space 
for dissenting voices, so vital to the continued development of 
democratic societies. If confirmed, I will also promote public 
diplomacy activities that demonstrate the power of free expression and 
association, including exchanges, visits, Internet outreach, and 
cultural events.

    Question. Is President Correa's decision not to run for reelection 
a significant development?

    Answer. President Correa has announced that he will not be a 
candidate for President in the 2017 elections, which is indeed a 
significant development. President Correa has held this office since 
2007, therefore the transition to another President as prescribed by 
the Ecuadorian Constitution, through an open and fair electoral process 
consistent with the terms and spirit of the Inter-American Democratic 
Charter, will be a significant development demonstrating the strength 
and resilience of Ecuadorian democracy. We will continue to work with 
the democratically elected leaders of Ecuador to strengthen the 
bilateral relationship and advance a positive agenda for increased 
cooperation.

    Question. To what degree are U.S. companies welcome to invest and 
operate in Ecuador? How would you describe the current investment 
climate in Ecuador and how might it be improved?

    Answer. While Ecuador is a growing trading partner, the regulatory 
environment for U.S. investors in Ecuador continues to be challenging. 
We have a Bilateral Investment Treaty with Ecuador that provides for 
national treatment; unrestricted remittances and transfers; prompt, 
adequate, and effective compensation for expropriation; and binding 
international arbitration of disputes. However, a number of U.S. 
companies operating in Ecuador, notably in regulated sectors such as 
petroleum and electricity, have filed for international arbitration 
resulting from investment disputes.
    U.S. foreign direct investment in Ecuador (stock) was $851 million 
in 2012 (latest official data available). I would like to expand 
economic links further, and if confirmed, will prioritize support for 
U.S. companies doing business and seeking to do business in Ecuador. I 
would note that with nearly $20 billion in two-way trade in 2014, the 
United States is Ecuador's largest trading partner.
    President Correa during his visit to New York City for the U.N. 
General Assembly in September gave two interviews, one to CNBC and one 
to Forbes, in which he invited more U.S. companies to invest in 
Ecuador. In response to this public invitation, I hope to have the 
opportunity to meet with Ecuadorian Government officials to explore 
facilitating this goal and discuss the reasons that have led several 
U.S. companies to withdraw from Ecuador and/or to choose not to make 
investments in Ecuador.
    One of the issues of concern for American businesses is the 
protection of intellectual property rights--Ecuador is on USTR's 301 
Watch List. Another issue of concern is the impression that Ecuador's 
investment policies are not consistently applied for all investors. If 
confirmed, I would strive to receive greater assurance that commercial 
disputes involving U.S. businesses will be resolved in a fair manner, 
consistent with due process.

                               __________
               ambassador-designate chapman's responses 
                    to questions from senator rubio
    Question. While the U.S. and Ecuador have traditionally had close 
ties, relations with Ecuador have been strained in recent years. In 
2014 Ecuador ordered all 20 Defense Department employees in the U.S. 
Embassy's military group to leave the country.
    President Correa has provided asylum in 2012 to WikiLeaks founder, 
Julian Assange, whose organization published troves of leaked U.S. 
military documents and diplomatic cables highly embarrassing to 
Washington.
    Correa had previously expelled at least three U.S. diplomats 
including Ambassador Heather Hodges in 2011. And Correa's government 
asked the U.S. Agency for International Development to end operations 
in the country, accusing it of backing the opposition.
    Based on past actions and statements, President Correa is hostile 
toward the United States Government. As you mentioned in your 
testimony, you have previously worked in a diverse group of countries 
representing our nation.

  <diamond> If confirmed, how would you apply your past working 
        experiences to promote policies that will strengthen the 
        bilateral relations between Ecuador and the U.S.?

    Answer. During my 25-year Foreign Service career, I have had the 
opportunity to serve in a wide range of countries, including Brazil, 
Mozambique, Bolivia, Costa Rica, Afghanistan, and Nigeria. In several 
of these countries we faced numerous challenges and major policy 
differences on key bilateral issues. In Mozambique, for example, 
threats to freedom of expression were a constant theme. Working in 
Bolivia at the beginning of the Evo Morales era, we were confronted 
with strong opposition by our host government to a broad range of U.S. 
policies.
    Two points from my past experience are especially relevant to my 
future role, if confirmed, as Ambassador to Ecuador. First, if actions 
by governments are being taken or considered that would damage our 
overall bilateral relationship, I would ensure we address those actions 
in direct conversations with the host government, at multiple levels, 
to make sure the message gets through. For this to occur, channels of 
communication and the building of personal relationships with senior 
government leaders is essential, and something I have done effectively 
in several countries, including Bolivia, Brazil, Mozambique, and Costa 
Rica. We also must speak out publicly on issues of concern to engage 
the broader civil society and leaders across the political spectrum, as 
I have done in many of these countries on television, radio, and 
through an active personal public diplomacy effort. Projecting clearly 
the values and democratic principles which are so important to U.S. 
foreign policy is in my view essential, and something I have 
consistently done over the course of my Foreign Service career. If 
confirmed, I intend to continue such practice as Ambassador to Ecuador.
    Second, we need to work with Ecuador to develop a broad bilateral 
agenda based on common areas of interest, and in this process establish 
a relationship based on mutual respect and clear communication about 
our objectives. If confirmed, I will work to build such an agenda with 
Ecuador based on our many areas of shared interest. This includes 
building on our strong people-to-people ties, and especially our 
thriving two-way educational exchange. This also means continuing to 
expand our growing two-way trade and to increase cooperation with 
Ecuador to counter regional threats posed by transnational crime, 
illicit narcotics, and trafficking in persons.
    We will continue to have disagreements with the Government of 
Ecuador, and we have to be firm in our views, but I believe we can make 
progress by building a broad agenda that addresses common interests and 
facilitates frank discussion.
    If confirmed, I will most certainly address the issues that are 
holding back greater bilateral partnership, which include democratic 
and human rights concerns and the need for a level playing field for 
investors. With increased partnership and dialogue, our common 
interests can drive the broader U.S.-Ecuador relationship in a 
constructive direction.

    Question. The 2008 Ecuadorian Constitution acknowledges freedom of 
speech and expression, Correa has consistently attacked journalists and 
news outlets since his election in 2007.

  <diamond> What is you assessment of the current state of the 
        independent press in Ecuador?
  <diamond> What steps do you plan to take, if any, to show support for 
        a free and open press if confirmed as Ambassador?

    Answer. We are concerned about increasing restrictions on freedom 
of expression in Ecuador because a vibrant civil society capable of 
free expression and association is a necessary component of any 
democracy. We share international concern over the Government of 
Ecuador's efforts to silence critical voices and restrict its citizens' 
access to certain information and ideas, and many senior U.S. 
Government officials have expressed such concern both privately and 
publicly. The U.N., Organization of American States (OAS) rapporteurs, 
and many international human rights organizations have expressed 
similar concerns.
    We will continue speaking out, as we do all around the world, in 
support of essential democratic rights and fundamental freedoms. If 
confirmed, I look forward to meeting with representatives of the press, 
civil society, and the government regarding this critical issue. With 
all interlocutors, both privately and publicly, I will highlight the 
importance of preserving space for dissenting voices, so vital to the 
continued development of democratic societies. If confirmed, I will 
also promote public diplomacy activities that demonstrate the power of 
free expression and association.

    Question. Ecuador's President, Raphael Correa, says he will not 
seek a fourth consecutive term in office. A group of congressmen from 
the ruling party has backed a proposed constitutional reform that would 
abolish all term limits, allowing Correa, to consider another 
Presidential bid in the future.

  <diamond> Do you believe that the proposed constitutional reform will 
        be passed allowing for unlimited terms in office?

    Answer. The Government of Ecuador enacted the proposed 
constitutional reform to allow for unlimited terms in office by a 
National Assembly vote on December 3. With approval by the National 
Assembly, the constitutional change is final and will soon appear in 
Ecuador's federal registry. The amendment, which removes term limits 
for all Ecuadorian elected officials, will take effect only after the 
February 2017 presidential and legislative elections. This will make 
President Correa and roughly one-third of the National Assembly 
ineligible for reelection in 2017. Correa had stated prior to the vote 
on the amendment that he would not run for the Presidency in 2017. 
Under the newly enacted amendment, he will be eligible to run for 
President of Ecuador in 2021.
    We support the democratic transition of power in all countries 
through free, fair, and credible elections and the strengthening of 
democratic institutions. To this end, we will stand up for 
constitutionally mandated term limits, and speak out against 
manipulation of laws that undermine democracy.

    Question. Ecuador's lax immigration policies have made it a hub for 
Cubans either looking for temporary work or trying to flee the island 
permanently. Some Cubans have paid smugglers thousands of dollars to 
help them illegally travel through South and Central America to the 
U.S. border.
    According to U.S. Customs and Border Protection, some 43,159 Cubans 
have arrived in the United States during fiscal year 2015. This is a 
78-percent increase over those who had arrived the previous fiscal 
year. Meanwhile, there are at least 3,000 Cubans stuck at the border 
between Costa Rica and Nicaragua, another 1,000 in the border between 
Panama and Colombia, and the number is growing daily, as there are 
another 17,000 Cubans in the pipeline already in Ecuador willing to 
start the land journey north.

  <diamond> What is the State Department doing, through our respective 
        Embassies in Ecuador, Colombia, Panama, Costa Rica and 
        Nicaragua, to deal with this current exodus?
  <diamond> What are the current safety and security considerations 
        regarding this latest Cuban migration crisis?
  <diamond> Why do you think the Cuban people are responding to the 
        Obama administration's new policy by fleeing the island in 
        greater numbers?
  <diamond> Why do you think the Cuban people prefer to spend thousands 
        of dollars--by selling all their belongings or borrowing from 
        their relatives abroad--to flee the island rather than to 
        become a ``self-employed'' licensee?

    Answer. The United States is committed to supporting safe, orderly, 
and legal migration from Cuba through the effective implementation of 
the 1994-95 U.S.-Cuba Migration Accords. According to the terms of 
these accords, the United States ensures that total legal migration to 
the United States from Cuba is at least 20,000 Cubans each year, not 
including immediate relatives of United States citizens.
    Our dialogue on migration with the Cuban Government predates the 
reestablishment of diplomatic relations. We view it as a critical 
mechanism for addressing shared challenges in migration policy and its 
implementation. At the November 30 Migration Talks, the U.S. delegation 
expressed its concern for the safety of the thousands of Cuban migrants 
transiting through Central America. This journey illustrates the 
inherent risks and uncertainties of involvement with smugglers and 
organized crime in attempts to reach the United States. The U.S. and 
Cuban delegations agreed to expert-level meetings on how both 
governments will contribute to combating the smuggling organizations 
that take advantage of Cuban migrants.
    At the Migration Talks, we also discussed three main drivers for 
Cuban emigration with the Cuban Government: the ``pull'' of U.S 
migration policy; the ``push'' of Cuba's lack of political and economic 
opportunity; and the perception that the rapprochement between our two 
governments would eventually lead to an end to Cubans' unique migration 
benefits under the Cuban Adjustment Act. The Cuban Government has 
stated that it is pursuing economic reform, but the pace has been slow. 
It is incumbent on the Cuban Government to provide economic 
opportunities for its people. Our policies continue to work toward a 
peaceful, prosperous, and democratic Cuba.
    We encourage all countries to respect the human rights of migrants 
and to ensure the humane treatment of individuals seeking asylum or 
other forms of protection under domestic laws in accordance with 
international law. We also encourage their efforts to combat human 
smuggling. Additionally, we are encouraging regional governments to 
find solutions to this challenge, including coordinated and 
comprehensive solutions that focus on preventing loss of life, ensuring 
the human rights of all migrants are respected, and promoting orderly 
and humane migration policies.

    Question. According to the 2015 TIP report, Ecuador is a source, 
transit, and destination country for men, women, and children subjected 
to sex trafficking and forced labor.

  <diamond> If confirmed, how do you plan to engage with the Government 
        of Ecuador and push them to develop a more robust 
        antitrafficking program in the country?

    Answer. Ecuador recognizes that international cooperation is vital 
in addressing human trafficking, which is a serious problem they are 
trying to confront and is an area where we hope to have increased 
bilateral cooperation. The Department's 2015 Trafficking in Persons 
(TIP) Report classified Ecuador as a Tier 2 country. While noting 
progress made in several areas, the report made nine key 
recommendations to the Government of Ecuador, focused on improving 
efforts to prosecute traffickers, protect victims, and prevent further 
trafficking.
    The Department of State uses a variety of programs to support 
efforts by countries to improve their performance in these areas. In 
the past, we have provided training to Ecuadorian judges, prosecutors, 
police officials, and officials charged with providing assistance to 
trafficking victims. Mission Ecuador works closely with Ecuadorian 
security agencies on trafficking issues, providing leads and 
information which have resulted in arrests and prosecutions both in 
Ecuador and the United States. We will look for additional 
opportunities to continue to grow this cooperation with the Government 
of Ecuador in the future.
    I have worked on human trafficking issues in previous assignments--
in Costa Rica, Bolivia, Mozambique, and Brazil--and, if confirmed, 
commit to engage personally on this issue to advance our cooperation, 
whether by highlighting the importance of combating human trafficking 
associated with a growing tourism industry or encouraging greater 
funding for the protection of victims. Reducing trafficking in persons 
in Ecuador through enhanced partnerships will be a top priority.

                               __________


                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

G. Kathleen Hill, of Colorado, to be Ambassador the Republic of 
        Malta
Eric Seth Rubin, of New York, to be Ambassador the Republic of 
        Bulgaria
Kyle R. Scott, of Arizona, to be Ambassador the Republic of 
        Serbia
David McKean, of Massachusetts, to be Ambassador to Luxembourg
Carlos J. Torres, of Virginia, to be Deputy Director of the 
        Peace Corps
                              ----------                              

    The committee met, pursuant to notice, at 2:20 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson, Risch, Gardner, Shaheen, Murphy, 
and Markey.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. This hearing will come to order.
    I want to welcome our witnesses, our nominees. First of 
all, I want to thank you for your past service, and I certainly 
want to thank you for your willingness to serve your Nation 
again.
    These nomination hearings are always pretty interesting. We 
have a wide range of different organizations and sometimes 
countries that we are talking about. So we learn an awful lot 
here. I hope you will have a good and enjoyable experience 
here.
    The position of Ambassador I think is just extremely 
important. I know Senator Gardner was talking ahead of time how 
important it is and how valued it is when we travel overseas. I 
am sure Senators Risch and Shaheen will agree with this. First 
of all, the professional Foreign Service people are just 
extraordinary individuals, I mean almost without exception. And 
the ambassadors are just so important at setting those trips up 
for us and making them so valuable.
    But, obviously, from my standpoint, it is just like a 
salesperson in a business. You, obviously, are representing the 
company to the customer but also the customer back to the 
company. Same thing here. You will be representing the United 
States of America, a country I think is the greatest in the 
history of mankind, a phenomenal force for good in the world, 
and it is your responsibility to represent us well, at the same 
time represent the country that you are ambassador to back to 
Congress, back to the people of the United States. It is a 
serious responsibility, and again I really do appreciate the 
fact you are willing to take that on.
    So without further ado, because I do not have a whole lot 
of voice left, I will turn it over to our ranking member, 
Senator Shaheen.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you, Mr. Chairman. I do not have a 
statement but I would just like to echo the thanks to each of 
you for your willingness to take on these very important 
positions and to point out that several of you are really at 
the center of what has focused the world's attention right now 
in terms of what is happening in Europe with refugees, what is 
happening in Europe with Putin's aggression into eastern 
Europe. And so you will be on the front lines of some very 
challenging issues for your tenure as ambassador. And so thank 
you very much for your willingness to be in these very 
important positions at this very difficult time.
    Senator Johnson. Thank you, Senator Shaheen.
    We do have Senator Markey who would like to introduce Mr. 
David McKean. I would like to ask Senator Markey if you are 
prepared.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    And it is my honor to introduce again to this committee 
David McKean. David was the staff director. David has dedicated 
his life to this committee and the issues that are central to 
the well-being of our Nation going forward.
    And I know he is here with his wife, Kathleen, and their 
three children, Shaw and Christian and Kay. And I know that 
everybody who knows him is proud to say that they believe that 
somebody is as qualified as a human being can be to have a 
position like this.
    He is a Massachusetts native. He proves once again that 
Massachusetts is not just the Bay State, that we are the 
``Brain State,'' and if you googled it, David's picture would 
come up. He has done this kind of work for his entire life.
    He is currently Director of Policy and Planning at the 
State Department. He joined the State Department in April 2012 
as a Senior Advisor to Secretary of State Clinton, and he 
directed the Policy Planning staff to lay the foundation for 
expanding global development cooperation with China in the 
areas of food security and nutrition and humanitarian 
assistance and disaster preparedness. He played an instrumental 
role in shaping the U.S. policy in support of a lasting and 
just peace in Colombia. He was central in focusing Secretary 
Kerry's focus on nationwide elections in Nigeria, which were 
held in March 2015 and were followed by Nigeria's first-ever 
peaceful transfer of power from one political party to another. 
He worked to maintain focus on international support for 
Ukraine as it moves along its path of reform, on support for 
transatlantic sanctions against Russia, and an end of military 
intervention there, and to ensure that we remain steadfast in 
our commitment to Ukraine's sovereignty and independence. He 
held the policy planning talks with more than 15 other 
countries, and most notably, he held the first-ever U.S.-India 
policy planning talks with the Indian Ministry of External 
Affairs. His work in the State Department brings him full 
circle from the beginning of his career in 1981 when he taught 
in Swaziland.
    It is just an amazing career. He began his career up here 
working for John Kerry, and it has moved through all of these 
years in an unbroken path of service to our Nation. He served 
on just about every issue discussion that we have had from A to 
Z, from Afghanistan to Zimbabwe on this committee. He was in 
the room. He was helping to shape the way in which those issues 
would be shaped. And I can tell you that no one will ever a 
higher endorsement from John Kerry to serve in our Foreign 
Service, to serve the United States in such an important 
position as David will receive from the Secretary.
    So I thank you, Mr. Chairman, for giving me the opportunity 
to be able to tout this great American's history. But rest 
assured that we are well served no matter where he is in the 
world. And I thank you.
    Senator Johnson. So you are supporting the nomination. 
[Laughter.]
    By the way--and I think Senator Risch would probably agree 
with me on this, being a former Wisconsinite. We just refer to 
Wisconsin as God's country. But we appreciate the fact that you 
like your State as well.
    Senator Markey. We think of cheese when we think of 
Wisconsin.
    Senator Johnson. Well, that is a good thing. [Laughter.]
    Well, based on that excellent introduction, we might as 
well go a little out of order here, and we will start with Mr. 
David McKean, who is being nominated to be the U.S. Ambassador 
to Luxembourg, with my colleague also pointing out that is a 
pretty nice post. But, Mr. McKean, why do you not start your 
testimony?

             STATEMENT OF DAVID McKEAN, NOMINATED 
                 TO BE AMBASSADOR TO LUXEMBOURG

    Mr. McKean. Thanks very much.
    Mr. Chairman and distinguished members of the committee, 
good afternoon.
    I am honored to appear before you today as President 
Obama's nominee to serve as the next Ambassador to Luxembourg. 
I am deeply grateful to the President and to Secretary Kerry 
for the confidence and trust they have placed in me with this 
nomination.
    I would also like to thank Senator Markey for his generous 
introduction.
    As Senator Markey has noted, I spent many years working as 
a staff member and chief of staff for Senator Kerry, and I am 
particularly honored to be testifying in front of a committee 
for which I served as staff director.
    My journey to this point would not have been possible 
without the support and guidance of my family, my children, 
Shaw, Christian, and Kay, who are not here, and most especially 
my wife of 27 years, Kathleen, who is here today.
    During my lifetime, I have traveled to over 65 countries, 
having visited more than 30 in my current capacity as Director 
of Policy Planning at the Department of State. The Grand Duchy 
of Luxembourg was the very first country I ever visited in 
1972.
    Luxembourg is at the heart of Europe, both geographically 
and politically. If confirmed by the Senate, I pledge to devote 
my time and efforts to enhancing the already strong 
relationship between our two countries, one that is based on 
both historically ties and Luxembourgers' positive views of 
America.
    Luxembourg citizens are deeply appreciative of the 
sacrifices American troops made during World War II to defeat 
the Nazis and liberate their country. The over 5,000 graves in 
the Luxembourg American Military Cemetery serve as a reminder 
of the sacrifice borne by so many for the liberties that 
Luxembourgers enjoy today. One of those graves is that of Gen. 
George Patton, whose wife was from my hometown of Hamilton, MA. 
The General and Mrs. Patton had planned to retire there, but it 
was not to be. His simple grave in Luxembourg is a reflection 
of his desire to be laid to rest alongside the men of the 3rd 
Army and perhaps serves as his final lesson in leadership.
    Leadership is important to me, and over the last 3 years at 
the State Department, I visited many of our embassies around 
the world. I have developed an admiration for the Foreign 
Service officers and locally employed staff who serve with 
dedication and determination to advance United States foreign 
policy goals worldwide. It will be an honor for me to lead them 
at our mission in Luxembourg during a critical time in Europe.
    Luxembourg is concluding its 6-month presidency of the 
Council of the European Union during which the agenda has been 
dominated by the refugee crisis affecting Europe. The 
unprecedented levels of new arrivals have posed considerable 
challenges to the Union, and Luxembourg has used the council 
presidency to help foster dialogue and forge consensus.
    Luxembourg has also stepped up recently in other areas, 
especially in the area of humanitarian assistance. Overall, 
Luxembourg commits over 1 percent of its GNP to assistance.
    Commercial ties between Luxembourg and the United States 
have been historically strong. The United States exports over 
$1.5 billion worth of goods to Luxembourg, and if confirmed, I 
will make trade promotion and Luxembourg direct investment into 
the United States a priority so that we can increase the market 
for U.S. goods and services and help create jobs and value here 
at home. A major component of that effort will be to advance 
discussions on the Transatlantic Trade and Investment 
Partnership.
    Another issue that we will be addressing in 2016 is 
Russia's involvement in Ukraine and the sanctions that are in 
place against Russia. Russia's violations of Ukrainian 
sovereignty cannot stand, and if confirmed, I will work with 
the Luxembourg Government to ensure their continued support of 
EU sanctions until the Minsk accords are fully implemented.
    The recent events in Paris have shown that no nation in 
Europe can take its liberties and freedoms for granted. If 
confirmed, I will do all I can, working with the Government of 
Luxembourg, to advance our shared vision of a Europe that is 
whole, free, safe, and at peace.
    Thank you again for the privilege of appearing before you 
today, and I look forward to your questions.
    [The prepared statement of Mr. McKean follows:]

                   Prepared Statement of David McKean

    Mister Chairman and distinguished dembers of the committee: Good 
afternoon.
    I am honored to appear before you today as President Obama's 
nominee to serve as the next Ambassador to the Grand Duchy of 
Luxembourg. I am deeply grateful to the President and to Secretary 
Kerry for the confidence and trust they have placed in me with this 
nomination.
    As Senator Markey has noted, I spent many years working as a staff 
member and Chief of Staff for Senator Kerry and I am particularly 
honored to be testifying in front of a committee for which I was staff 
director in 2009.
    My journey to this point would not have been possible without the 
support and guidance of my family, most especially my wife, Kathleen, 
who is here today.
    During my lifetime I have travelled to over 65 countries, having 
visited more than 30 in my current capacity as Director of Policy 
Planning at the Department of State. The Grand Duchy of Luxembourg was 
the very first country I ever visited in 1972.
    Luxembourg is at the heart of Europe, both geographically and 
politically. If confirmed by the Senate, I pledge to devote my time and 
efforts to enhancing the already strong relationship between our two 
countries that is based on both historical ties and Luxembourgers' 
positive views of America.
    Luxembourg citizens are deeply appreciative of the sacrifices 
American troops made during World War II to defeat the Nazi occupation 
and liberate their country. The over 5,000 graves in the Luxembourg 
American Military Cemetery serve as reminders of the sacrifice borne by 
so many for the liberties that Luxembourgers enjoy today. One of those 
graves is that of Gen. George Patton, whose wife was from my hometown 
of Hamilton, MA. The General and Mrs. Patton had planned to retire 
there, but it was not to be. His simple grave in Luxembourg is a 
reflection of his desire to be laid to rest alongside his men and 
perhaps serves as his final lesson in leadership.
    Leadership is important to me. Great work is done when people are 
motivated, inspired, and empowered. That is the spirit in which I 
intend to approach the job of Chief of Mission, if confirmed.
    Over the last 3 years at the State Department, I have developed an 
admiration for the Foreign Service officers and specialists, and 
Locally Employed Staff, who serve with dedication and determination to 
advance U.S. foreign policy worldwide. It would be an honor for me to 
lead them at our mission in Luxembourg during a critical time in 
Europe.
    Luxembourg is concluding its 6-month Presidency of the Council of 
the European Union, during which the agenda was dominated by the 
refugee crisis affecting Europe. The unprecedented levels of new 
arrivals have posed considerable challenges to the Union, and 
Luxembourg has used the council presidency to help foster dialogue and 
forge consensus. Luxembourg was among the first EU countries to receive 
refugees as part of the EU plan to distribute 160,000 refugees among 
member states.
    Luxembourg has also stepped up recently in other areas of 
humanitarian assistance, and overall commits over 1 percent of GNP to 
assistance. In 2014 alone, Luxembourg made contributions of over $24 
million to support refugees, internally displaced persons, and other 
victims of conflict in Syria, Mali, South Sudan, and the Central 
African Republic.
    United States and Luxembourg commercial ties have been historically 
strong. The United States exports over $1.5 billion worth of goods to 
Luxembourg. If confirmed I will make trade promotion and direct 
investment from Luxembourg into the United States a priority, so that 
we can increase the market for U.S. goods and services and help create 
jobs and value here at home. A major component of that effort will be 
to advance discussions on the Transatlantic Trade and Investment 
Partnership. If confirmed, I will do everything I can to build public 
support for a comprehensive TTIP agreement that boosts economic growth 
and creates jobs on both sides of the Atlantic.
    Another issue that we will be addressing in 2016 is Russia's 
aggression in Ukraine, and the sanctions that are in place against 
Russia. Russia's violations of Ukraine's sovereignty cannot stand, and 
if confirmed I will work with the Luxembourg Government to ensure their 
continued support of EU sanctions, until Minsk is fully implemented.
    Recent events have shown that no nation in Europe can take its 
liberties and freedoms for granted. If confirmed, I will do all I can, 
working with Luxembourg, to advance our shared vision of a Europe 
whole, free, and at peace.
    Thank you again for the privilege of appearing before you today, 
and I look forward to answering your questions.

    Senator Johnson. Thank you, Mr. McKean.
    Now we will go back to our previously scheduled order. Our 
next witness will be Ms. Kathleen Hill. Ms. Hill is nominated 
to be the U.S. Ambassador to the Republic of Malta.
    Ms. Hill is a career member of the Foreign Service and 
currently serves as Senior Advisor in the Office of the 
Executive Secretary at the Department of State. Previously Ms. 
Hill has held positions within the State Department's Bureau of 
European Affairs and the Bureaus of Near Eastern Affairs and 
South and Central Asian Affairs. Ms. Hill also has served at 
multiple overseas posts, including Canada, Italy, and Serbia.
    Ms. Hill.

        STATEMENT OF G. KATHLEEN HILL, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF MALTA

    Ms. Hill. Thank you, Chairman Johnson, Senator Shaheen, and 
distinguished members of the committee.
    It is an honor to appear before you today as President 
Obama's nominee to serve as the next United States Ambassador 
to Malta. I look forward to working with Congress and this 
committee to advance U.S. interests in Malta.
    I am deeply grateful to the President and Secretary Kerry 
for the trust they have placed in me by nominating me for this 
position, especially at a time when we face some of the most 
daunting security challenges. Our hearts are with all those who 
have lost loved ones in recent weeks in France, Turkey, 
Lebanon, and over the Sinai en route home to Russia. Such 
events make me even more thankful for the support of my family, 
my mother, Mary Ann, who is here today, along with my brother-
in-law, Neil, and my niece, Maura, as well as my sister, Renea, 
and other nieces, Grace and Colleen, who could not be with us 
today. As with all Foreign Service families, it is their 
encouragement that helps sustain us as we serve our country in 
the farthest reaches of the world.
    For two and a half years, I managed Secretary Kerry's 
travel, visiting more than 60 countries and witnessing the 
incredible value of diplomacy and how every country can be a 
partner to reach our common goals, such as security, 
prosperity, and promoting democratic values. I hope to 
incorporate what I have learned in strengthening our 
partnership with Malta in these areas. I have served three 
tours in southern and southeastern Europe, and more recently, I 
led the Arab Spring evacuations of Libya, Tunisia, and Egypt, 
which gave me extensive experience working two of the key 
issues of the Mediterranean countries, regional security, and 
refugees. In every position I have held, I have encouraged 
teamwork, empowerment, and staff development to achieve 
success. If confirmed, I plan to implement that same formula 
for success at our mission in Malta.
    Ties between the United States and Malta date back to the 
early 19th century when Valletta, one of the finest natural 
harbors in the Mediterranean, was the base for the U.S. Navy's 
actions against the Barbary pirates. Malta's location continues 
to position the country as a significant actor in maintaining 
security in the Mediterranean. As a member of the European 
Union and the Schengen Treaty, Malta is responsible for 
enforcing the Schengen zone's common border and EU customs 
control. It also sits in the middle of the world's busiest 
shipping lanes, with over a third of the world's shipping 
transiting the waters between Malta and Italy.
    Malta is a close ally to the United States and supports us 
on regional issues. During the period of unrest in Libya that 
began in February 2011, I witnessed firsthand the important 
role Malta played supporting the evacuation of more than 20,000 
foreign nationals, including 200 American citizens; 
coordinating humanitarian aid to the people of Libya; and 
providing assistance to international forces. Shortly 
thereafter, Embassy Valletta hosted the Department's Libya 
External Office before it moved to Tunisia, and the Government 
of Malta supported the External Office's presence by 
accrediting our increased staffing.
    A participant in the NATO Partnership for Peace since 2008, 
Malta remains a steadfast partner in defense. U.S. Navy ships 
visit on a semiregular basis while the Maltese military 
actively participate in regional exercises on search and 
rescue, regional maritime awareness, and security.
    We also work closely with Malta to address irregular 
migration. The U.S. Coast Guard has trained the Armed Forces of 
Malta to operate and navigate fast response boats and patrol 
vessels in order to provide assistance to refugees and support 
to law enforcement operations.
    On our bilateral defense cooperation, the United States and 
Malta do not have a status of forces agreement, which limits 
the parameters of further engagement. If confirmed, I will 
continue to highlight the strategic defense and economic 
benefits of a SOFA with senior Maltese political leaders and 
influential business and commercial leaders. A SOFA would 
facilitate more regular ship visits and further enhance 
security cooperation between our two countries.
    If confirmed, I will continue the work of my predecessor in 
supporting and encouraging increased bilateral trade currently 
valued at more than $1 billion. It is estimated that one of 
every 30 jobs in Malta is linked to a U.S. business. Our 
mission will continue to support the SelectUSA initiative to 
encourage Maltese investment in the United States and work to 
advance and expand the ability of U.S. businesses to invest in 
Malta, a conduit for markets in Europe and North Africa.
    Mr. Chairman and members of the committee, I would like to 
thank you again for this opportunity to appear before you. If 
confirmed, I will dedicate myself to representing the best of 
the United States in Malta and working with this valued and 
historic partner to advance U.S. foreign policy. I look forward 
to answering your questions.
    [The prepared statement of Ms. Hill follows:]

                  Prepared Statement of Kathleen Hill

    Chairman Johnson, Senator Shaheen, and distinguished members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee to serve as the next United States Ambassador to Malta. 
I look forward to working with Congress and this committee to advance 
U.S. interests in Malta.
    I am deeply grateful to the President and Secretary Kerry for the 
trust they have placed in me by nominating me for this position. As a 
career Foreign Service officer, I am truly humbled by the opportunity 
to serve my country as Ambassador. I also am very thankful for the 
support of my family, my mother, Mary Ann, my sister, Renea and her 
family, including her husband, Neil, and daughters, Maura and Colleen, 
who are all here today and my other niece, Grace, in California. As 
with all Foreign Service families, both immediate and extended, it is 
their encouragement that helps sustain us as we serve our country in 
the farthest reaches of the world.
    For two and half years, I managed Secretary Kerry's travel, 
visiting more than 60 countries and witnessed the incredible value of 
diplomacy and how every country can be a partner to reach our common 
goals, such as security, prosperity, and promoting democratic values. I 
hope to incorporate what I have learned in strengthening our 
partnership with Malta in these areas. During my 20-year career I have 
served three tours in southern and southeastern Europe. More recently, 
I led the Arab Spring evacuations of Libya, Tunisia, and Egypt, which 
gave me extensive experience working on the key issues of Mediterranean 
countries--regional security and refugees. In every position I have 
held, I have encouraged teamwork, empowerment, and staff development to 
achieve success. If confirmed, I plan to implement that same formula 
for success at our mission in Malta.
    Ties between the United States and Malta date back to the early 
19th century when Valletta, one of the finest natural harbors in the 
Mediterranean, was the base for the U.S. Navy's action against the 
Barbary pirates. Malta's location continues to position the country as 
a significant actor in maintaining security in the Mediterranean. As a 
member of the European Union and the Schengen Treaty, Malta is 
responsible for enforcing the Schengen zone's common border and EU 
customs control. It also sits in the middle of the world's busiest 
shipping lanes, with over a third of the world's shipping transiting 
the waters between Malta and Italy.
    Malta is a close ally to the United States and supports us on 
regional issues in North Africa and Europe. During the period of unrest 
in Libya that began in February 2011, I witnessed firsthand the 
important role Malta played in supporting the evacuation of more than 
20,000 foreign nationals, including 200 American citizens; coordinating 
humanitarian aid to the people of Libya; and providing assistance to 
international forces. Shortly thereafter, Embassy Valletta hosted the 
State Department's Libya External Office before it moved to Tunisia; 
the Government of Malta supported the External Office's presence by 
accrediting our increased staffing.
    A participant in the NATO Partnership for Peace since 2008, Malta 
remains a steadfast partner in defense. U.S. Navy ships visit on a 
semiregular basis while the Maltese military actively participate in 
regional exercises on search and rescue, regional maritime awareness, 
and security.
    We also work closely with Malta to address irregular migration. The 
U.S. Coast Guard has trained the Armed Forces of Malta to operate and 
navigate fast response boats and patrol vessels, in order to provide 
assistance to refugees and support to law enforcement operations.
    On our bilateral defense cooperation, the United States and Malta 
do not have a status of forces agreement (SOFA), which limits the 
parameters of further engagement. If confirmed, I will continue to 
highlight the strategic defense and economic benefits of a SOFA with 
senior Maltese political leaders, and influential business and 
commercial leaders. A SOFA would facilitate more regular ship visits 
and further enhance security cooperation between our two countries.
    If confirmed, I will continue the work of my predecessor in 
supporting and encouraging further bilateral trade, currently valued at 
more than $1 billion. It is estimated that one out of every 30 jobs in 
Malta is linked to a U.S. business. Our mission will continue to 
support the SelectUSA initiative and work to advance and expand the 
ability of U.S. businesses to invest in Malta, a conduit for markets in 
Europe and North Africa. I believe U.S. foreign direct investment 
should be encouraged in Malta's thriving service-based industries, as 
well as its manufacturing and transshipment sectors. I also intend to 
continue raising awareness on the mutual benefits of the Transatlantic 
Trade and Investment Partnership (T-TIP).
    Mr. Chairman and members of the committee, I would like to thank 
you again for this opportunity to appear before you. If confirmed, I 
will dedicate myself to representing the best of the United States in 
Malta and working with a valued and historic partner to advance U.S. 
foreign policy. I look forward to answering your questions.

    Senator Johnson. Thank you, Ms. Hill.
    Our next witness is Mr. Eric Rubin. Mr. Rubin is nominated 
to be the U.S. Ambassador to the Republic of Bulgaria.
    Mr. Rubin is a career member of the Foreign Service and 
most recently served as Deputy Assistant Secretary in the 
Bureau of European and Eurasian Affairs from 2011 until August 
of 2015. Mr. Rubin previously served at the U.S. Embassies in 
Moscow and Ukraine and U.S. consulate in Thailand.
    Mr. Rubin.

         STATEMENT OF ERIC SETH RUBIN, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF BULGARIA

    Mr. Rubin. Thank you, Mr. Chairman, Ranking Member Shaheen, 
and distinguished members of the committee.
    It is a privilege to appear before you today as President 
Obama's nominee to be United States Ambassador to Bulgaria. I 
am humbled and honored by the trust that President Obama and 
Secretary Kerry have placed in me, and I thank you for your 
time and your willingness to consider my nomination.
    Mr. Chairman, members of the committee, for over 30 years, 
I have cherished my association with the United States Foreign 
Service. On four continents, I have done my utmost to advance 
the national interests of our country and the values and 
priorities that we share as Americans. For me, appearing before 
you to ask you to consider my nomination is also a chance to 
express my gratitude for the opportunity I have had to serve 
our country and to advocate for our shared vision of a world 
based on peace, prosperity, and liberty.
    Before I go further, please allow me to acknowledge some of 
my family members, both those who are here with me today and 
those who are not. I am forever grateful to my parents, who 
introduced me to the wider world and taught me not to accept 
things as they are, but to try to change them for the better. I 
am deeply grateful to my wife, Nicole Simmons, who is here with 
me today, for her love and support over these past 32 years. 
She has been my constant advisor, best friend, and advocate. 
Together with our two beautiful daughters, Rachel, who is here 
with me today, and Liana, she has also been my constant partner 
in the work we have done to represent the United States and the 
American people.
    I first visited Bulgaria in 1991 when I went to organize 
the first security dialogue and military-to-military exchanges 
between our two countries at the end of the cold war. Those 
were heady but difficult days. Bulgarians set a course for the 
future toward European integration and the Atlantic alliance.
    Bulgarians have achieved much in the years since. Bulgaria 
today is a staunch NATO ally that lies in a strategic location 
at the southeastern edge of the European Union. But there is 
much more that we can and should do together. When Secretary 
Kerry visited Bulgaria in January, he recognized the important 
collaboration between our countries and announced jointly with 
Bulgaria the formation of bilateral working groups on national 
security and defense, energy security, education and people-to-
people ties, and the rule of law. These working groups have 
been so well received that we recently added a counterterrorism 
working group which first met last week.
    Bulgaria is among the newer NATO members and has the second 
lowest GDP per capita in the alliance. Nonetheless, it has been 
a stalwart ally since becoming a member of the alliance. It 
sent troops to and took casualties in Iraq and Afghanistan. It 
has been a tireless participant in training exercises and hosts 
one of NATO's force integration units on the eastern flank. It 
is prudently setting aside more resources toward modernizing 
its military and preparing for tomorrow's missions.
    Our newest bilateral working group, as I mentioned, focuses 
on counterterrorism. Bulgaria takes counterterrorism seriously, 
and the recent attacks in Paris underscore the importance of 
this work. Bulgaria is part of the Counter-ISIL Coalition and 
plays an important role in helping to stem the flow of foreign 
terrorist fighters due to its critical location at the 
crossroads between the Near East and western Europe.
    Of course, national security is not limited to defense. 
Bulgaria relies almost entirely on Russia for natural gas and 
nuclear fuel. We are supporting Bulgaria's efforts to diversify 
its sources of energy in line with European Union goals. Gas 
from the Caspian Sea could be an important part of the 
solution.
    The rule of law affects almost every line of effort we 
share with Bulgaria. The corruption is still common in 
Bulgaria. We are encouraged to see positive technical and 
legislative steps, and if confirmed, I commit myself to working 
to help Bulgaria tackle these difficult challenges and make 
further progress.
    On a very positive note, our trade relationship has just 
about doubled over the past 6 years. Hewlett-Packard, which 
already employs more than 6,000 Bulgarians, in April opened 
Europe's only HP Technology Lab, which will simulate technology 
and business processes and train the company's experts in 
Bulgaria. If confirmed, I will continue our embassy's advocacy 
for our commercial interests and American business.
    Finally, my highest priority, if I am confirmed, will be to 
ensure the safety and security of the men and women working at 
our Embassy and their family members, as well as the safety and 
well-being of all American citizens in Bulgaria.
    Mr. Chairman, members of the committee, if given the 
opportunity, I look forward to working with you and your 
colleagues on these and other important issues. I hope to be 
able to welcome you back to Sofia to witness the work of our 
dedicated embassy staff on behalf of American taxpayers, 
cultivating this important bilateral relationship and advancing 
our national interests.
    I thank you again for your willingness to consider my 
nomination. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rubin follows:]

                    Prepared Statement of Eric Rubin

    Thank you Mr. Chairman, Ranking Member Shaheen, and distinguished 
members of the Senate Foreign Relations Committee.
    It is a privilege to appear before you as President Obama's nominee 
to be the United States Ambassador to Bulgaria. I am humbled and 
honored by the trust that President Obama and Secretary Kerry have 
placed in me, and I thank you for your time and your willingness to 
consider my nomination.
    Mr. Chairman, for over 30 years I have cherished my association 
with the U.S. Foreign Service. On four continents, I have done my 
utmost to advance the national interests of our country, and the values 
and priorities that we share as Americans. For me, appearing before you 
to ask you to consider my nomination is also a chance to express my 
gratitude for the opportunity I have had to serve our country and to 
advocate for our shared vision of a world based on peace, prosperity, 
and liberty.
    Before I go further, allow me to acknowledge some of my family 
members, both those who are here with me today and those unable to 
attend. I am forever thankful to my parents, who introduced me to the 
wider world and taught me not to accept things as they are, but to try 
to change them for the better. I am deeply grateful to my wife, Nicole 
Simmons, for her love and support over these many decades. She has been 
my constant adviser, best friend and advocate. Together with our two 
beautiful daughters, Rachel and Liana, she has also been my constant 
partner in the work we have done to represent the United States and the 
American people.
    I first visited Bulgaria in 1991, when I helped to organize the 
first security dialogue and military-to-military exchanges between our 
two countries at the end of the cold war. Those were heady yet 
difficult days, but Bulgarians set a course for the future, toward 
European integration and the Atlantic Alliance. Bulgarians have 
achieved much in the years since--Bulgaria today is a staunch NATO ally 
that lies in a strategic location at the southeastern edge of the 
European Union. But there is much more that we can and should do 
together. When Secretary Kerry visited Bulgaria in January, he 
recognized the important collaboration between our countries, and 
announced jointly with Bulgaria the formation of bilateral working 
groups on National Security and Defense, Energy Security, Education and 
People-to-People Ties, and the Rule of Law. These working groups have 
been so well received that we recently added a Counterterrorism working 
group, which first met last week.
    Bulgaria is among the newer NATO members and has the second-lowest 
GDP per capita in the alliance. Nonetheless, it has been a stalwart 
ally. It sent troops to--and took casualties in--Iraq and Afghanistan. 
It is a tireless participant in training exercises and hosts one of the 
NATO Force Integration Units on NATO's eastern flank. It is prudently 
setting aside more resources toward modernizing its military and 
preparing for tomorrow's missions.
    Our newest bilateral working group, as I mentioned, focuses on 
counterterrorism. Bulgaria takes counterterrorism seriously, and the 
recent attacks in Paris underscore the importance of this work. 
Bulgaria is a part of the Counter-ISIL Coalition and plays an important 
role in helping stem the flow of foreign terrorist fighters due to its 
location at the crossroads between the Near East and western Europe.
    Of course, national security is not limited to defense. Bulgaria 
relies almost entirely on Russia for natural gas and nuclear fuel. We 
are supporting Bulgaria's efforts to diversify its sources and routes 
of energy, in line with EU goals. Gas from the Caspian Sea could be an 
important part of the solution.
    Bulgaria's potential lies in its ability to overcome a past 
associated with corruption and crime. The state of rule of law affects 
almost every line of effort we share with Bulgaria. Though corruption 
is still common in Bulgaria, we are encouraged to see some positive 
technical and legislative steps, and, if confirmed, I commit myself to 
working to help Bulgarians tackle these difficult challenges.
    Our trade relationship has just about doubled over the last 6 
years. Hewlett-Packard, which already employs more than 6,000 
Bulgarians, in April opened Europe's only HP Technology Lab, which will 
simulate technology and business processes and train the company's 
experts in Bulgaria. If confirmed, I would continue the Embassy's 
advocacy for our commercial interests, leading to similar success 
stories.
    Person-to-person exchanges are sometimes the most effective form of 
diplomacy, particularly in light of efforts by some in the region to 
undermine the strong U.S.-Bulgarian relationship. Bulgarians 
participate in public and private sector exchanges, and the Embassy is 
expanding its engagement with alumni of these programs.
    We have many agencies represented at Embassy Sofia. Beside the 
Department of State, there are the Departments of Defense, Energy, 
Commerce, and Agriculture. We have law enforcement colleagues from the 
FBI, Secret Service, and DEA. If confirmed, I would do everything in my 
power to ensure the Embassy's efficient operation.
    If given the opportunity, I look forward to working with you and 
your colleagues on these and other important issues. I would welcome 
you to Sofia to witness the good work of our dedicated Embassy staff on 
behalf of the American taxpayers, cultivating this important bilateral 
relationship. I thank you again for your willingness to consider my 
nomination. Thank you.

    Senator Johnson. Thank you, Mr. Rubin.
    Our next nominee is Mr. Kyle Scott. He is the nominee to be 
the Ambassador to the Republic of Serbia. Mr. Scott is a career 
member of the Foreign Service and currently serves as the 
Department of State's senior fellow at the German Marshall 
Fund.
    Previously Mr. Scott served as counsel general at the U.S. 
consulate in Milan and as Director of the Office of Russian 
Affairs at the State Department. Additionally, Mr. Scott has 
held positions representing the United States to the OSCE and 
the European Union and at embassies in Hungary and Russia.
    Mr. Scott.

          STATEMENT OF KYLE R. SCOTT, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF SERBIA

    Mr. Scott. Chairman Johnson, Ranking Member Shaheen, 
members of the committee, it is an honor to appear before you 
today as the President's nominee to be the Ambassador to the 
Republic of Serbia. I hope the committee and the Senate will 
share the confidence entrusted in me by the President and 
Secretary Kerry.
    I am accompanied today by my two sons, Mark and Kristian, 
and by my wife, Nena. They have stood by me through more than 
three decades in the Foreign Service, including 16 moves and 
eight overseas postings. The family members of the Foreign 
Service often bear the brunt of personal sacrifice and 
hardship. My family are a living testimony to public service on 
behalf of the American people, and I could not be prouder of 
them than I am today.
    In 35 years as a member of the Foreign Service, I have 
dedicated my career to improving America's security and our 
position in the world. Much of that time has been focused on 
transatlantic relations, including multiple assignments in 
Western, Central, and Eastern Europe. During this period, we 
have made great strides in forging a Europe whole, free, 
prosperous, and at peace. But that vision is not yet complete.
    Allow me to focus a few key points regarding Serbia's role 
in this broader vision.
    Serbia is a linchpin for stability and progress in the 
Western Balkans. In recent years, it has made considerable 
progress on its path toward Euro-Atlantic integration, and now 
it stands at a critical inflection point, facing difficult 
decisions that will forge Serbia's future and shape relations 
with its neighbors in ways that can contribute to broader peace 
and stability. It is in the interest of the United States that 
Serbia develops as a modern, prosperous European nation at 
peace with itself and its neighbors, demonstrating full respect 
for the rule of law and the rights of all its citizens.
    Over the past several years, with our strong support, 
Serbia has taken a strategic decision toward a Euro-Atlantic 
future rooted in EU membership. If confirmed, I would strive to 
continue this progress. This includes enacting legislative, 
fiscal, and regulatory reforms. It means strengthening ties 
among the countries of the western Balkans. And in this regard, 
sustained progress toward a comprehensive normalization of the 
Serbia-Kosovo relationship is a fundamental requirement for the 
long-term regional stability of the western Balkans.
    Progress also requires reinforcing and defending shared 
democratic values, supporting human rights and protecting 
fundamental freedoms.
    A key to continued progress is more dynamic economic growth 
and reform, streamlining bureaucracy, improving competitiveness 
and innovation, and combating the corrosive consequences of 
corruption will all help Serbia become a more attractive 
destination for investment from American companies and a more 
dynamic market for U.S. exports.
    More recently Serbia is also bearing a major brunt of the 
recent migration crisis afflicting Europe. Serbia's leaders and 
its people deserve to be commended for their humanitarian 
approach but can also use everyone's help in managing the added 
burdens associated with this challenge.
    And finally, if confirmed, I am committed to continue to 
seek resolution of two important challenges to our bilateral 
relationship. Those responsible for the 1999 murder of three 
American citizens, the Bytyqi brothers, have never been brought 
to justice. The same holds true for those who allowed the mob 
attacks on the U.S. Embassy in 2008. I pledge unwavering 
efforts, if confirmed, to press the Serbian Government to 
ensure that all who were involved in these crimes are brought 
to justice regardless of their rank or position. This is a 
challenging agenda.
    I look forward to building on the leadership and dedication 
shown by the current U.S. Ambassador, Michael Kirby, and know I 
can count on the experience of a talented team of Americans and 
locally employed staff at Embassy Belgrade, as well as the 
support from multiple agencies in Washington and the 
legislative branch. If confirmed, I am committed to doing my 
utmost to promote our shared goal, a democratic Serbia 
providing growth and security for its citizens at peace with 
all its neighbors and firmly set on a path of European 
integration.
    Thank you for granting me this opportunity to appear before 
the committee today, and I look forward to your questions.
    [The prepared statement of Mr. Scott follows:]

                    Prepared Statement of Kyle Scott

    Chairman Johnson, Ranking Member Shaheen, and members of the 
committee, it is an honor and privilege to appear before you today as 
the President's nominee to be the Ambassador to the Republic of Serbia. 
I deeply appreciate the confidence that President Obama and Secretary 
Kerry have placed in me through this nomination. I hope the committee 
and the Senate will share that confidence and confirm me.
    I am accompanied today by my two sons, Mark and Kristian, and by my 
wife, Nena, who have been my rock and inspiration throughout my career 
as a U.S. diplomat. They have stood by me through more than three 
decades in the Foreign Service, including 16 moves and eight overseas 
postings. The family members of the Foreign Service often bear the 
brunt of personal sacrifice and hardship. They are living testimony to 
public service on behalf of the American people, and I could not be 
prouder of them than I am today.
    In 35 years as a member of the Foreign Service, I have dedicated my 
career to improving America's security and our position in the world. 
Much of that time has been focused on transatlantic relations, 
including seven overseas assignments spanning Western, Central, and 
Eastern Europe. During this period, we have made great strides in 
forging a Europe whole, free, prosperous, and at peace, but that vision 
is not yet complete. As Deputy Chief of Mission at the U.S. Mission to 
the OSCE, I witnessed firsthand the struggles of countries seeking to 
transform their societies and the role that outside actors and 
multilateral organizations can play in helping them better adhere to 
the values and principles that underpin the transatlantic relationship. 
As Principal Officer in the U.S. consulate in Milan, I have seen the 
invaluable role of our allies in addressing shared challenges in the 
region. I have also seen the immense benefit that investment by 
American firms contributes to reaching our goal in forging a prosperous 
Europe. My recent position as a senior fellow at the German Marshall 
Fund of the U.S. has offered me an invaluable opportunity to 
participate in debates on U.S foreign policy in Europe, the crisis in 
Ukraine, the EU's financial difficulties, and the latest challenges 
posed by the unprecedented migration crisis. As a former Director of 
the Office of Russian Affairs, I am fully aware of the regional 
challenges posed by Russian attempts to influence its European 
neighbors and by Russian aggression in Europe, including Russia's 
recent actions that have violated Ukrainian sovereignty and territorial 
integrity and sought to destabilize Ukraine. I believe the confluence 
of these experiences has prepared me well to serve as Chief of Mission 
in Serbia.
Euro-Atlantic integration
    Serbia is a linchpin for stability and progress in the Western 
Balkans. In recent years, it has made considerable progress on its path 
toward Euro-Atlantic integration. Now it stands at a critical 
inflection point. Political leaders in Belgrade face difficult 
decisions that will indelibly forge Serbia's domestic development, will 
help shape relations with its neighbors for generations to come, and 
can contribute to broader peace and stability in the region. It is in 
the interest of the United States that Serbia develops as a modern, 
prosperous European nation at peace with itself and its neighbors, 
demonstrating full respect for the rule of law and the rights of all of 
its citizens.
    Over the past several years, with our strong support, Serbia has 
made concrete steps toward defining its Euro-Atlantic future. Serbian 
leaders are pursuing a broad agenda aimed at acceding to the European 
Union. This includes enacting legislative, fiscal, and regulatory 
reforms that can stimulate the transformation that we strongly support. 
Reforms such as cutting public wages and pensions and privatizing 
state-owned businesses are difficult. With U.S. technical assistance, 
the Government of Serbia is pursuing business-enabling environment 
reforms that should help better align Serbia's fiscal practices with EU 
and international standards. More important, making the right choices, 
tough as they may be, will place the country on a path toward more 
sustainable growth and development.
Regional relations
    Mr. Chairman, the challenge of strengthening ties among the 
countries of the Western Balkans remains a significant hurdle in 
pursuit of our Euro-Atlantic vision. Normalization of the Kosovo-Serbia 
relationship is a fundamental requirement for long-term regional 
stability and progress. In line with its EU accession process, Serbia 
has made significant progress in the EU-facilitated Dialogue with 
Kosovo over the past year. We have strongly supported the Dialogue and 
encouraged both parties to fully implement all elements of the April 
2013 ``Brussels Agreement'' on normalization of relations, a landmark 
diplomatic achievement in the Balkans. This August, we saw significant 
progress on implementing remaining elements of the Brussels Agreement--
a major step toward opening Serbia's first chapters of the EU acquis. 
Credit for these successes goes to the political leaders of Serbia and 
Kosovo, who have reaffirmed their commitment to the process, and to the 
principled mediators of the EU. The U.S. Embassies in Serbia and Kosovo 
also played an important role as behind-the-scenes mediators and 
impartial advisors on the process. I would also like to acknowledge the 
dedication and hard work Ambassador Michael Kirby has shown to 
facilitating relations between the two countries. If confirmed, I am 
committed to continuing this work in support of the Dialogue. Together 
with our European partners, I will work to help ensure that the parties 
remain at the table in good faith, implement all Dialogue agreements 
through timely and concrete results, and sustain progress toward a 
comprehensive normalization of relations.
    Serbia's relations with its other neighbors generally have improved 
over the past 3 years, but they, too, require continued focus. This 
will remain an important aspect of our diplomacy in the region. If 
confirmed, I will work to build strong channels of communication 
between Serbia and its neighbors--including Bosnia and Herzegovina and 
Croatia--so that outstanding issues can be resolved and the region as a 
whole can move toward Euro-Atlantic integration.
    Finally, Serbia is bearing a major brunt of the recent migration 
crisis afflicting much of Europe. Serbia deserves to be commended for 
its humanitarian approach, but can also use everyone's help in managing 
the added burdens associated with this wave of migrants.
Democracy and Rule of Law
    An important element in Serbia's European integration will be 
strengthening its ability to promote and defend shared democratic 
values, support human rights, and protect fundamental freedoms. If I am 
confirmed for this position, I am committed to continuing America's 
support for strengthening institutions and procedures that support the 
rights of individuals from minority communities, help combat 
corruption, and foster a democratic society. A vibrant civil society, 
free media environment, and empowered independent institutions are 
critical to achieving these goals. Strengthening our long-standing 
support for these components of democracy will be a crucial part of my 
mission. Only by creating an environment underpinned by rule of law--
one that allows each individual the opportunity to develop to his or 
her full potential--will Serbia succeed in attracting more investment, 
combat the debilitating outflow of its youngest and brightest, and 
strengthen the public's faith in government institutions. The lead in 
these efforts must come from Serbian political leaders and the Serbian 
people, but our programs to strengthen the administration of criminal 
justice, advance judicial reform, improve investigation and prosecution 
of crimes, and train judges, prosecutors, and police can be an 
important part of this effort. Working closely with U.S. technical 
experts, civil society, and international organizations, the Serbian 
Government is taking measures to implement serious reforms--such as 
putting the recently passed whistleblower law to the test and bringing 
due process to those accused of corruption through transparent, 
thorough court trials.
Economic development
    Alongside rule of law measures, more dynamic economic development 
and reform will be vital to Serbia's Euro-Atlantic aspirations. 
Although there are initial signs that Serbia is finally emerging from a 
decade of anemic economic performance that has eroded national 
confidence, more needs to be done. I am committed to supporting 
American businesses as part of an effort to help Serbia embark on the 
road toward greater prosperity. Our economic ties continue to grow, 
with U.S. investment since 2002 exceeding $3.6 billion dollars. 
American companies employ more than 15,500 people in Serbia. Serbia has 
enormous economic potential, including an educated and talented 
workforce and a geography that positions the country in an important 
trading crossroads for Europe. All this makes Serbia an attractive 
destination for investment from U.S. companies. To make the most of its 
potential, however, much work remains to be done to streamline the 
process of doing business, reduce bureaucratic impediments, improve 
small and medium-sized enterprise (SME) competitiveness and innovation, 
and combat the corrosive consequences of corruption.
Peacekeeping and military relations
    Last November, Serbia signed an Individual Partnership Action Plan 
(IPAP) with NATO reflecting the country's increasing aspiration to be a 
source for stability and security not only in the Western Balkans, but 
in the broader region as well.
    Over the last 5 years, Serbia has become an increasingly important 
contributor to regional and international stability through 
peacekeeping operations. Serbian soldiers today are deployed as 
peacekeepers on six U.N. missions on three continents and as observers 
on two EU missions. The once confrontational military-to-military 
relationship between Serbia and the United States has evolved into a 
full and comprehensive partnership, and, as mentioned before, Serbia 
has committed to a pragmatic partnership with NATO. Through our Global 
Peace Operations Initiative (GPOI), the United States is supporting the 
development of South Base, a Serbian military facility that offers 
state-of-the-art training opportunities for units preparing to deploy 
overseas in support of U.N. and EU peacekeeping missions. The Serbian 
military's partnership program with the Ohio National Guard is among 
the most successful in Europe. Both the civilian leadership and senior 
ranks of the uniformed military have embraced these and other programs 
as part of a comprehensive program for building skills and promoting 
interoperability.
Bilateral concerns
    If confirmed, I will continue to seek resolution of two important 
challenges to our bilateral relationship. Those responsible for the 
murder of the three American citizen Bytyqi brothers, New York 
residents executed by Serbian security forces in 1999, have never been 
prosecuted. The American people cannot allow the murderers of three of 
our citizens to escape justice. Likewise, those who allowed the mob 
attacks on the U.S. and other Western embassies in February 2008 to 
take place have never been brought to justice. While we welcome the 
fact that six current and former police officials are under 
investigation for ordering the police to stand aside while our Embassy 
was under attack, we are dismayed that the rioters who were convicted 
were only given light, suspended sentences. For these cases--the murder 
of the Bytyqi brothers and the attack on our Embassy--I am committed to 
unwavering efforts to press the Serbian Government to complete thorough 
investigations and ensure that all who were involved in these crimes 
are brought to justice, regardless of their rank or position.
Closing
    This is a challenging agenda, but it is also achievable. From my 
experience in the Foreign Service, I know I will not have to pursue it 
alone. Drawing on the experience of the talented team of Americans and 
locally employed staff at Embassy Belgrade, our partners from multiple 
agencies in Washington, and continued support from the legislative 
branch, I am committed to doing my utmost to promote our shared goal--a 
democratic Serbia providing growth and security for its citizens, at 
peace with all of its neighbors, and firmly set on a path of European 
integration.
    Thank you once again for granting me the opportunity to appear 
before this committee today. I look forward to your questions.

    Senator Johnson. Thank you, Mr. Scott.
    Our final nominee is Mr. Carlos Torres. Mr. Torres is 
nominated to be the Deputy Director of the Peace Corps. Mr. 
Torres is currently the Associate Director for Global 
Operations at the Peace Corps, a position he has held since 
2013.
    Previously Mr. Torres served as Regional Director for the 
Inter-America and Pacific Region at the Peace Corps and has 
served as an independent consultant on international projects 
from 2000 until 2010. Mr. Torres also founded--is it CARANA?
    Mr. Torres. CARANA.
    Senator Johnson. Corporation in 1984 and served as its 
president and CEO until the year 2000.
    Mr. Torres.

        STATEMENT OF CARLOS J. TORRES, NOMINATED TO BE 
               DEPUTY DIRECTOR OF THE PEACE CORPS

    Mr. Torres. Chairman Johnson, Ranking Member Shaheen, other 
members of the subcommittee, thank you for inviting me here 
today to testify before you. It is a privilege to be here as 
you consider my nomination to serve as the next Deputy Director 
of the Peace Corps.
    I would like to thank President Obama for nominating me. I 
am honored by this opportunity to serve my country in this 
role.
    I want to thank my family. I am accompanied today by my 
wife of 33 years, Anita Capizzi, and my mother, Anne Roper. Our 
three sons could not be with us today. They are spread out 
throughout the country.
    I would also like to thank Peace Corps Director Carrie 
Hessler-Radelet for her leadership trust and counsel over the 
past years.
    I am also very proud to have with me today three recently 
returned Peace Corps Volunteers: Clara Reyes, Daniel Hinkle, 
and Soletia Christie. I have asked them to join us today 
because they are examples of how Volunteers are at the center 
of my decisionmaking process every day as we work toward a more 
important goal, ensuring that every Volunteer has a safe and 
productive volunteer experience.
    From the beginning of my career in the private sector, I 
have spent my life's work in the field of economic development. 
This is the reason why I created CARANA Corporation in 1984, 
which provides private sector-led solutions to problems in 
economic development. I believe my real-world business 
experience has positively informed my decision-making process 
in my current role at Peace Corps, and if confirmed as the 
Deputy Director, I plan to continue to draw from this time as 
an entrepreneur and businessman.
    In December of 2009, several years after having stepped 
down as the chairman and CEO of CARANA Corporation, I was 
honored when Peace Corps asked me to put my management and 
international economic development skills to work by leading a 
comprehensive agency assessment team, which took a critical 
look at a wide range of Peace Corps operations and procedures. 
I am extremely proud of that assessment which focused on how 
Peace Corps could improve its operations, better utilize its 
resources, and increase its impact. The comprehensive agency 
assessment has served as a blueprint for the agency over the 
past 5 years and has guided many of our reforms, leading to 
vast improvements in the way we train and support our 
Volunteers, how we allocate resources, and overall management 
and operations within the agency. These reforms, among others, 
have positioned the Peace Corps to make an even greater impact 
into the future.
    I was sworn in as the regional director for the Inter-
America and Pacific region in June 2010 and served in that 
capacity for 3 years. In November 2013, I was sworn in as the 
associate director for the Office of Global Operations. In both 
of these positions, I have been able to combine my private 
sector experience with the knowledge gained in carrying out the 
comprehensive agency assessment. The result has always been a 
sharp focus on improving our operations, particularly on how 
the agency supports its Volunteers in the field.
    I believe that it is moral obligation to provide all of our 
Volunteers with the best possible experience, one that is both 
safe and productive. I want to ensure the members of this 
subcommittee that these are not just words. Every decision I 
have made during my time at the agency is based on the 
foundation that as a manager at the Peace Corps, I have an 
obligation to do everything I can so that every Volunteer has 
that safe and productive experience.
    It has been an honor to shape both the direction and the 
agency's significant reforms over the past 5 years, and I am 
committed both personally and professionally to seeing them 
through and continuing to provide world-class support to our 
Peace Corps Volunteers who are changing the world every day.
    Thank you again for having me here today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Torres follows:]

                 Prepared Statement of Carlos J. Torres

                              Introduction

    Chairman Johnson, Ranking Member Shaheen, and members of the 
committee, I thank you for inviting me to testify before you today, as 
you consider my nomination to be the next Deputy Director of the Peace 
Corps.
    I would like to thank President Obama for nominating me; I am 
humbled by the opportunity to serve my country in this role. I also 
want to thank my family. I am accompanied today by my wife of 33 
years--Anita Capizzi; and my mother--Anne Roper. I would also like to 
recognize my sons; Cristian, who is studying at the University of 
Maryland; Miguel, who is working in Costa Mesa, CA; and Andres, who 
just finished his MBA at Kellogg University in Chicago and is now 
working in Austin, TX. I would also like to thank Peace Corps Director, 
Carrie Hessler-Radelet, for her leadership, trust, and counsel over the 
past several years.
    I am also very proud to have with me today three recently returned 
Volunteers: Clara Reyes, Daniel Hinkle, and Soletia Christie. Clara 
comes from New Mexico and served in El Salvador from 2009 to 2012; 
Daniel hails from Montana and also served in El Salvador from 2010 to 
2012; and Soletia comes from California and served in Mali from 2010 to 
2012. I have asked them to join us today to witness my testimony 
because they are examples of how Volunteers are at the center of Peace 
Corps' and my decisionmaking process every day.
Background
    I would like to take a brief moment to talk about my background and 
experience, and how it has prepared me for this opportunity. From the 
beginning of my professional career as a consultant in the financial 
industries group at the Arthur D. Little Company in Cambridge, MA, 
through today, I believe I have developed a strong reputation as a 
manager and as a problem solver. It would be my great honor to be able 
to continue to apply my skills as the Deputy Director of the Peace 
Corps, if confirmed.
    It was during my time at the Arthur D. Little Company that I first 
began to work in the field of economic development, focusing my efforts 
since then on reducing global poverty and income inequality.
    In 1983, I was a personal services contractor in Costa Rica with 
the United States Agency for International Development, which was my 
first job with the United States Government. A year later, I started 
CARANA Corporation, a consulting company providing private sector-led 
solutions to problems in economic development. Over the next 16 years, 
I built CARANA Corporation into the company that it is today--a 
Virginia-based company that has a strong presence throughout the 
developing world with dedicated staff working on a variety of 
innovative development projects.
    It was a natural progression that in early 2009--several years 
after having stepped down as president of CARANA Corporation, and with 
a strong interest in working overseas again--I applied to be a Country 
Director with the Peace Corps. However, as fate would have it, in 
December 2009, the agency's leadership asked me, instead, to lead a 
Comprehensive Agency Assessment team that was tasked to take a critical 
look at a wide range of issues concerning Peace Corps' operations and 
procedures.
    I am extremely proud of the Assessment, which focused on how Peace 
Corps could improve its operations, better utilize its resources, and 
increase its impact. The Comprehensive Agency Assessment has served as 
a blueprint for the agency over the past 4 years, and has guided many 
of our reforms, leading to marked improvements in the way we train and 
support our Volunteers, how we allocate resources, and overall 
management and operations within the agency. These reforms, among 
others, have positioned the Peace Corps to make an even greater impact 
in the future.
    The Comprehensive Agency Assessment was delivered to Congress on 
June 15, 2010. The next day, I was sworn in as the Regional Director of 
the Inter-America and Pacific region of the Peace Corps, where I served 
until March 2013. I then served as the Acting Associate Director for 
Global Operations until November 2013, when I was sworn into the job. I 
have been serving as the Associate Director for the Office of Global 
Operations since then.
    As the Regional Director of the Inter-America and Pacific region, I 
oversaw Peace Corps' operations in 23 countries, which in turn 
supported approximately 2,800 Volunteers. In this position, I was able 
to combine my private sector experience with the knowledge gained in 
carrying out the Comprehensive Agency Assessment. The result was a 
sharp focus on improving Volunteer operations, and particularly, on how 
the agency supports Volunteers in the field.
    When I say we are committed to ``a safe and productive Volunteer 
experience,'' I want to assure the members of this committee that these 
are not just words. I believe very strongly that as an agency, it is 
Peace Corps' moral obligation to provide Volunteers with the best 
possible experience: a safe and productive experience. Every decision I 
have made during my time with the agency is based on the foundation 
that, as a manager at the Peace Corps, I have an obligation to do 
everything I can so that every Volunteer has a safe and productive 
experience.
    It was this focus on the Volunteer that in 2010 led me to take a 
hard look at Peace Corps' operations in the Northern Triangle of 
Central American and in other parts of the region where crime rates 
against Volunteers were high. We asked ourselves some hard questions 
regarding our Volunteer operations in these countries and focused on 
how we looked at risk, with a fresh eye on how we could improve our 
overall risk mitigation strategies. The result was a comprehensive 
package of reforms that were implemented in early 2011. The reforms we 
made resulted in a dramatic decrease in serious crimes against our 
Volunteers. While these difficult decisions were not always popular, I 
am proud of the results that we have delivered.
    As the Associate Director of the Office of Global Operations, I 
continued to focus my attention on further strengthening Volunteer 
operations. I work every day to implement the vision of our Director, 
born out of the Comprehensive Agency Assessment, and predicated on our 
goal that every Volunteer have a safe and productive experience.
    During my time at Peace Corps, I have worked with Peace Corps staff 
to better define our core operations and develop a framework that we 
can use to make better decisions. I have worked to ensure that our 
overseas staff has a greater say in the decisionmaking process at the 
agency, which in turn keeps the agency's focus on the core operations 
in the field. I have also worked to introduce new budgeting and 
planning methodologies that have resulted in improved funding and 
staffing for our overseas posts, so they can better support our 
Volunteers.
    In her testimony before this committee in November, 2013, Director 
Hessler-Radelet described her vision for the agency as a dynamic, 
forward-leaning champion for international service. I embrace this 
vision where the Peace Corps is defined by its energy, innovation, and 
impact, and as the place where Americans who are drawn to service 
abroad can make a real difference in the lives of the world's poor.
    To implement our Director's vision, the agency is concentrating its 
resources in three key areas: a bold communications and outreach 
strategy, a competitive recruitment strategy, and continued 
enhancements to Volunteer support to deliver results. At the center of 
these three elements is the work that we do to recruit and support the 
best staff possible, and to ensure that we are providing the right 
level of resources where they are needed. I am happy to say that we 
continue to make excellent progress in each of these areas.
Conclusion
    If confirmed as Deputy Director, I hope to be able to continue to 
implement the vision that our Director has articulated so well by 
focusing on our core operations with the Volunteer at the center.
    In my professional career, I have been fortunate to come across 
many Peace Corps Volunteers in the many countries where I have worked. 
I developed an admiration for these dedicated Americans who live in 
tough conditions, working every day to bring new skills, knowledge, and 
hope to the communities they serve. In many cases, these Volunteers are 
the first Americans that the residents in these communities have ever 
interacted with, and as a result, today there are millions of people 
around the world with a positive opinion of America and its people, and 
a greater understanding of what we as a country stand for.
    At the beginning of my testimony I introduced three recently 
returned Volunteers: Clara, Soletia, and Daniel. I am blessed to work 
with them, and all of the other returned Peace Corps Volunteers at the 
agency, every day. These returned Volunteers, as well as all of our 
currently serving Volunteers, inspire me every day to work my hardest 
so that each and every one of them has a safe and productive Volunteer 
experience. I welcome the opportunity to serve President Obama, 
Director Hessler-Radelet, my country and our Volunteers in this 
capacity.
    Thank you again for having me here today, and I look forward to 
answering any questions you may have.

    Senator Johnson. Thank you, Mr. Torres. Again, I want to 
welcome all your family and friends that have come here to the 
hearing.
    A number of you mentioned the refugee crisis, and I guess I 
would kind of like to go right down the line. Either through 
your current experience, previous experience, or your new 
position, give me your latest insight. I would like to be 
brought up to speed with your knowledge of how the refugee 
crisis--what you are aware of. I will start with you, Ms. Hill.
    Ms. Hill. Thank you, Senator Johnson.
    From the perspective that I have been tracking the refugee 
crisis from Malta's perspective, it has been a bit different 
this year than years past. In years past, the refugee flow has 
gone straight through Malta. It has been a south to north flow 
coming up from North Africa. This year the refugee crisis has 
changed. It has gone to an east to west flow. So this year, 
Malta has not seen as many refugees entering the country as 
they have last year. As a matter of fact, this year they have 
had maybe a little bit over 100 refugees and that is it. In 
years past, they have been in the thousands, and for a small 
country, that has been a heavy burden.
    Senator Johnson. They just stop in Malta and transit down 
through?
    Ms. Hill. What is going on right now is some have made it 
to the shores, but the Europeans now have Operation Trident 
going on in the Mediterranean, which is intercepting the boats 
and taking them to larger intake facilities in Italy. So the 
refugees are being shuttled around Malta to the larger intake 
facilities in Italy. But Malta has still been at the forefront 
of the burden-sharing plan the European Union has just put in 
place. In years past, Malta has been a country that has tried 
to get rid of its refugees. This year, they have agreed to take 
refugees from Turkey and Greece in small numbers, but according 
to the formula that the European Union has based on burden-
sharing for all the states. So they are taking about 180 
refugees this year from Turkey and Greece.
    Senator Johnson. So with Operation Trident, how quickly are 
refugees picked up? How soon are they intercepted and taken on 
board? Within how many miles approximately?
    Ms. Hill. You know, Senator, I do not have the answers to 
that question specifically. I can get those for you. I think it 
is fairly quickly when they enter international waters if they 
are discovered. Sometimes the ships make it directly to Italy 
without even going through any interception.
    Senator Johnson. Mr. Rubin.
    Mr. Rubin. Thank you very much, Mr. Chairman.
    At the end of the cold war, Bulgaria had a fully 
militarized border with Turkey, which was the border between 
the Warsaw Pact and NATO. And at the time of the end of the 
cold war, those fortifications and fencing and walls and other 
physical barriers were torn down. At the beginning of this 
refugee crisis, Bulgaria faced a situation in which much of its 
physical border was unprotected, undefended, unfenced. And at 
the beginning of the crisis, Bulgaria was faced with a very 
large inflow of migrants from Turkey crossing areas that were 
not patrolled, and in the initial phases, about 90,000 illegal 
entry attempts and about 30,000 arrests were made.
    Since the beginning of the crisis, Bulgaria, with help from 
the European Union and other partners, including the United 
States, has done much to erect physical controls on the border, 
which is the external border of the European Union now, as well 
as control the areas that are not fenced. And there has been a 
dramatic improvement in the number of refugees/migrants trying 
to cross illegally. Bulgaria faces less of a challenge than 
some of the other EU members because it is not yet a member of 
Schengen, and therefore, entering Bulgaria does not give 
migrants automatic entry to the rest of the EU. So for that 
reason, it has not been as popular a destination.
    That said, these numbers are very significant and we have 
generally assessed that the Bulgarian Government and the 
Bulgarian border police and other agencies have done a good job 
both in handling this tremendous influx, but also treating the 
migrants with full respect for their rights and ensuring that 
all procedures are followed.
    Senator Johnson. So you used the figure 90,000; 30,000 were 
apprehended. Can you just tell me what is the disposition of 
the 60,000 that were not apprehended versus the 30,000 who 
were?
    Mr. Rubin. Yes. The ones who were apprehended but not taken 
into custody essentially were turned away, and I would not be 
able to tell you what happened after they returned to Turkey, 
but that is obviously a subject that is an important question.
    On the question of those in Bulgaria, there are temporary 
detention centers. The Bulgarians have complied with all 
procedures in terms of registering the migrants who they 
detained, ensuring that they have full biometrics on them, 
sharing that with European Union agencies and international 
agencies tracking the flow. And we have been very, very pleased 
with the cooperation we have had in following this influx.
    Senator Johnson. So you are saying that about 60,000 are 
being detained now within Bulgaria?
    Mr. Rubin. I do not have exact numbers, Mr. Chairman. It is 
under 30,000 and falling, and I think the peak of the crisis, 
it would appear, for Bulgaria has passed.
    Senator Johnson. Now, they are moving around Bulgaria then.
    Mr. Rubin. Correct.
    Senator Johnson. Mr. Scott.
    Mr. Scott. Thank you very much for the question, Mr. 
Chairman.
    I think as we have all seen from the news, Serbia is a key 
transit point for many of the flows of the refugees coming out 
of Turkey through Greece, Macedonia, through Serbia on their 
way toward northern Europe.
    To put that in some bit of perspective, in 2014, Serbia had 
about 17,000 registered refugees. This year, especially this 
fall, they are registering numbers like that on a weekly basis, 
some days as many as 3,000 and as high as 10,000 per day have 
been crossing their border.
    Serbia's approach has been very much based upon meeting 
their humanitarian needs. These people are not seeking to stay 
in Serbia. They are moving onward, and Serbia is taking the 
approach of trying to make sure that their humanitarian needs 
are met, but also frankly to help them on their way northward. 
So what that means in Serbia's case is ensuring that they have 
adequate protections at their southern border so that they can 
process these people through in a humanitarian way. That means 
providing shelter for them, medical treatment for those who 
need it, food, and transit aid as well to move further north.
    They have also been very cognizant of the security concerns 
and security needs by trying to channel these refugees into 
reception centers. They are then able to process those who 
present themselves to the Serbian Government. That means 
ensuring proper documentation, taking biometrics, and then 
moving them on.
    Senator Johnson. My time has expired.
    Senator Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    I would like to begin with Mr. Torres. I am a big supporter 
of the Peace Corps. I think it does amazing work around the 
world. But I am very troubled by the recent report from the 
Office of the Inspector General that found that nearly 1 in 5 
American Peace Corps Volunteers serving around the world is 
sexually assaulted at some point during their service. And 
equally troubling was the finding in the report that about half 
of these victims did not report their attacks because they felt 
that it would negatively impact their standing as a Peace Corps 
Volunteer.
    Now, given that you have served for the last couple of 
years as assistant director for Global Operations and that you 
were a consultant for 10 years before that, can you talk about 
what is going on in the culture of the Peace Corps that allows 
this to continue to happen and that makes Volunteers feel like 
they cannot report or get help for the situation that they have 
been in when they have been sexually assaulted?
    Mr. Torres. Yes, Senator, I can address that.
    The Peace Corps's primary concern is the safety and 
security of our Volunteers. We work tirelessly to create that 
safe and productive Volunteer experience.
    In 2011, after the passage of the Kate Puzey Act, we 
created what we refer to as our sexual assault risk reduction 
and response program. This is a comprehensive program with over 
30 components that are designed not only to better train our 
Volunteers to avoid the risks but also to respond in a better 
way to our Volunteers. It has been advised by an independent 
council of individuals that are both from the public sector, 
Justice, Defense, as well as in the private sector, that are 
experts in the field of sexual assault.
    I believe that the agency has made tremendous strides in 
this area. We have created, among other things, and 
specifically to address the issue of nonreporting, a system of 
restricted reporting. The system of restricted reporting is one 
that allows a Volunteer to come forward, receive the services 
that they require with a limited number of people knowing about 
it. We know that a lot of victims of sexual assault do not come 
forward because they do not want it to be known or they do not 
want to file charges or have it turn into a criminal case. The 
system of restricted reporting does that.
    We have seen an increase in the reporting. We believe that 
this is not an increase in the number of sexual assaults but 
rather that it is achieving our goal of increased reporting in 
sexual assaults. And as I stated earlier, I do believe that our 
agency has made significant progress. There is always more that 
we can do and we continue to work for them.
    Senator Shaheen. Can you talk a little bit more about the 
kind of preparation that is provided to Peace Corps Volunteers 
and the training that they get that would help them both in 
terms of addressing potential dangerous situations as well as 
how they are instructed if they are sexually assaulted?
    Mr. Torres. Yes.
    So on the risk reduction side, we carry out trainings on 
culture, hidden messages that translate through culture. We 
talk to them about bystander intervention. We inform them about 
confidentiality and reporting confidentiality options that they 
have available to them. A lot of work goes into their site 
development and the site where they are placed. We know that 
Volunteers are safest in their sites. So that would be another 
area.
    Senator Shaheen. Can you explain that a little bit more? 
When you say ``safest in their sites,'' what do you mean?
    Mr. Torres. So as you know, Peace Corps places their 
Volunteers in sites in a community. The whole Peace Corps 
rationale behind safety and security is that by placing them in 
a community and having them be accepted by that community, they 
are safest. It is the community that protects them. So our work 
that we do in site development really is critical to ensuring 
the safety of the Volunteer over their 2 years of service, and 
that is what we focus on.
    In addition, on the training, we also provide them training 
on how they can report, whether it be restricted or a standard 
report. We also inform them as to the role of the Office of the 
Inspector General. They always have the option to go directly 
to the Inspector General. We supply them with a hotline number, 
as well as an email address. So they are receiving information 
from a lot of different angles.
    On the response side, they know what their options are. We 
remind them constantly. Our staff has undergone training in all 
of our posts on how to respond to a standard report or how to 
respond to a restricted report.
    Senator Shaheen. And yet, according to the Inspector 
General, the hope for outcome from all of those measures has 
not improved significantly, as I read it. Do you feel like 
those measures have improved the situation, and if not, what 
other kinds of efforts do you think can be undertaken to 
address this issue? Because clearly when that is on the nightly 
news, it discourages people who we want to come and join the 
Peace Corps.
    Mr. Torres. Yes, Senator.
    Right now, the Office of the Inspector General is beginning 
a study, which would be the 5-year study on the implementation 
of the Kate Puzey Act. This study was called for under the 
legislation, and I look forward to that study. I believe that 
they will be a tough critic but I also believe that they will 
be fair. I believe that this report, when it is submitted to 
Congress, will show that the agency has made these significant 
improvements.
    I mentioned that we have an independent advisory board. 
This is also created under the Kate Puzey Act. They have 
advised us every step of the way. They have just finished their 
fourth annual report, and with your permission, I would just 
like to read two sentences from it----
    Senator Shaheen. Sure, please.
    Mr. Torres [continuing]. Which I believe does tell a 
different story.
    The council continues to be impressed with the Peace Corps 
for its dedication to fulfill the mandates of the Kate Puzey 
Act and for the development of a wide range of programs and 
services for its Volunteers. Whether implementing new policies, 
introducing new staff in Volunteer training, or working to 
monitor and evaluate programs and services, the Peace Corps has 
demonstrated an ongoing commitment to its Volunteers. This is 
dated October 28.
    Our commitment to sexual assault and the risk reduction and 
response aspects of it really start with our director. You may 
be aware that our director herself was assaulted when she was a 
Peace Corps Volunteer. She is driven to change the culture of 
Peace Corps. We follow her drive. I believe that she has done 
an excellent job, and we continue to improve the Peace Corps 
every day.
    Senator Shaheen. My time is up but, Mr. Chairman, if you do 
not mind, let me ask a final question because as the Deputy 
Director, will this issue be part of your portfolio at the 
Peace Corps.
    Mr. Torres. This issue is part of everybody's portfolio at 
the Peace Corps. We have all received training. We are all a 
part of it. When I travel overseas and I visit a post, I attend 
the trainings that are related to our SARP program. It is 
everybody's job at the Peace Corps. As the Deputy Director, it 
will be my job and it is my job to make sure that we continue 
to make the progress that we need to make.
    Senator Shaheen. Well, thank you. I very much appreciate 
that and that response. And I look forward to getting reports 
as part of this committee on the progress that is being made on 
this issue because it is obviously a critical challenge that 
needs to be overcome for the Peace Corps to continue to do the 
kind of work that has made it such an icon for America.
    Mr. Torres. Thank you, Senator. And I would be happy to 
offer a visit from our experts at the Peace Corps that could 
meet with you or other members of the subcommittee. Then I 
could brief you on everything we are doing and all of the 
changes that we have made.
    Senator Shaheen. Thank you. We will take you up on that.
    Senator Johnson. Thank you, Senator Shaheen.
    Let me go back to refugees with Mr. Scott. So they transit 
through Serbia through where? Hungary has pretty well closed 
their border I believe. So it is through Croatia then?
    Mr. Scott. Yes, sir. At the beginning, they were going 
mainly through Hungary, but after Hungary built up its wall, 
they began to transit mainly through Croatia. There was a brief 
period when that border was shut down as well, but now the 
cooperation between the Croatian Government and the Government 
of Serbia has managed to regularize the flow.
    Senator Johnson. I see that Senator Murphy has just 
arrived. So Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Welcome to all of you. Congratulations on your nominations. 
Hopefully we will move you quickly through the process.
    Mr. Rubin, I wanted to ask you a broad question that would 
also apply to the other members of the panel that are going to 
go to visa waiver countries, but we are having a debate here 
about the security of this country and the extent to which we 
can work with the administration to tighten up the visa waiver 
program to make sure we know who is coming into the United 
States. I know that the administration just announced some 
reforms to that program. But I want to draw on your experience 
at the Europe and Eurasia desk over the course of the last 
several years, and if there are comments from others, I welcome 
them.
    It strikes me that the backstop to the visa waiver program 
is the no-fly list, is our ability to determine who should and 
who should not be on these flights. Our no-fly list is only as 
good as the information that we have about people that pose a 
risk to the United States. And our information about how poses 
a risk to the United States is only so good as we have agile 
and robust lines of communication with European governments 
that are doing a lot of the law enforcement actions. Now, our 
intelligence services communicate regularly, but sometimes, as 
we know, there are silos between intelligence agencies and law 
enforcement agencies in the United States and in European 
capitals.
    Talk to me just a little bit about, to the extent that this 
is in your portfolio, ways in which we should be thinking about 
strengthening the visa waiver program. And then what role does 
an ambassador play in a visa waiver country in trying to force 
the host country to get serious about populating these shared 
databases with all of the information necessary to have a 
complete list of prohibited individuals?
    Mr. Rubin. Thank you very much, Senator Murphy.
    During my time in the European Bureau over the past 4 
years, this subject was one of our absolute top priorities, and 
I will say I think enormous progress was made directly with the 
European Union and its agencies with all the member states with 
a few other countries that are not European Union members but 
are in the visa waiver program. The issues you cite, Senator, 
are the absolute critical issues, having good information early 
enough and having ample enough information to ensure that we 
are protecting our borders and ensuring that we are not 
admitting anyone who should not be admitted. We are ongoing.
    Next, if this committee and the whole Senate confirms me, 
Bulgaria is not yet a member of the visa waiver program. The 
Bulgarians would very much like to join, but I can say that in 
the case of Bulgaria, the cooperation has been absolutely 
superb on all the various forms of data sharing and information 
sharing that we need to ensure that travelers to the United 
States are screened adequately. We do not have any direct 
flights from Bulgaria, so we do not have to deal with any 
direct entry problems. But we do have the information on 
travelers coming from Bulgaria and the cooperation between our 
agencies on the ground, DHS, the State Department's 
International Narcotics and Law Enforcement Bureau, the Drug 
Enforcement Agency, all of our other agencies, the FBI, has 
been superb. It is obviously a regional issue. It is obviously 
an issue that affects all of these countries. I can tell you 
that if I am confirmed, as Bulgaria seeks to join the visa 
waiver program, this will be an absolute top priority ensuring 
that that is the most important question addressed.
    Senator Murphy. But given your--and this is more going 
backward rather than forward in your career. Has State been 
satisfied with the level of input into the databases that we 
have access to that come from our European partners regarding 
law enforcement or national security investigations of 
suspected terrorists or extremists?
    Mr. Scott. Thank you, Senator.
    During my time in the European Bureau, I did not actually 
oversee any relations with countries that were in the visa 
waiver program. So I will confess to not having the fullest 
picture. I can tell you, though, as part of my time as Deputy 
Assistant Secretary, as part of the team, it was a very high 
priority effort from the beginning and I do know in all of our 
biannual discussions with the EU, with the agencies of the 
member states, a lot was accomplished. I would defer to 
colleagues who were more directly involved in that and would 
also be glad to get you more information on that trajectory as 
well during that time.
    Senator Murphy. Mr. Scott, about a year ago, I was in 
Serbia, spent some time with Prime Minister Vucic. I was there 
at a fascinating moment. I happened to be there the day before 
Putin arrived with a military parade overflown by MIG jets. And 
it was pretty remarkable that on a day when he was showing off 
the sort of robust potential military and economic commitment 
that Russia was prepared to make to Serbia, our Ambassador was 
at the time begging me to come back to the United States to ask 
for $20,000 or $30,000 more to keep open an exchange program 
that was really, really important.
    And it just struck me as an example of the extreme 
imbalance between the amount of attention that we pay to the 
Balkans and the amount of attention that the Russians pay. A 
country like Serbia desperately wants--I think Vucic generally 
wants an alliance with Europe and an alliance with the West. 
But they are getting a lot more love and a lot more attention 
from Moscow than they are from Washington today.
    Now, we cannot expect that a country like Serbia is going 
to make a choice. We should not. They have to have good 
relations with Russia. It is deeply engrained in their history. 
But we have got to find some ways, potentially in the absence 
of major new appropriations for programs like that from the 
Congress, to create some tighter connections.
    This is a long way of asking about what you know about 
Serbia's orientation between the EU and Russia. What are some 
things that we can do to show them that we are serious about 
tightening that connection between us and them? Because they 
are going to continue to get offers as they do almost every 
month from Moscow to create security partnerships, to create 
economic partnerships to draw them away. And they are not the 
only ones. The Montenegrins are getting those offers. Certainly 
the offers are always out there for the Bosnians, and we do not 
often have satisfactory counters to those offers.
    Mr. Scott. Thank you very much for your question, and I 
share the basic thrust of your concerns about a more assertive 
Russian presence in the western Balkans and in Serbia in 
particular.
    I agree with you very much that it should not be American 
policy to try to drive a wedge between the Serbian people and 
the Russian people. There are centuries' long historical, 
cultural, linguistic, religious ties between the peoples.
    But the real concern is whether Russian Government policy 
today is influencing Serbia or other countries of the western 
Balkans in ways that would be detrimental to our interests. And 
in this regard--and I know that you met with Prime Minister 
Vucic, and I also had the opportunity to hear you speaking of 
your general impressions at the German Marshall Fund after that 
trip. You know that he and his government have made a 
commitment, a strategic commitment, toward the direction that 
he would like to see his country go, towards the West, toward 
European Union membership. And I think that we should be doing 
everything possible that we can to encourage them and to help 
them along that path, to strengthen their institutional 
interweaving with Euro-Atlantic institutions. And that means 
first and foremost for them at this point the European Union. 
They are not interested in joining NATO at this moment. But 
also in relationships with the United States. I think that our 
embassy can play a big role in that process.
    Part of it is in order to have a counternarrative to the 
narrative which the Russians are trying to put forward, and 
that means the Ambassador and other members of the mission need 
to be out there in the public speaking to the press, speaking 
to the Serbian population, traveling around the country. We 
need to use the American centers that we have in Serbia as 
platforms to allow the Serbian people to get to better know 
what Western and in particular American policies are all about 
because there is a lot of false messages that are being 
presented by the Russians. And we need to help support the 
basic institutions which can get out alternate messages to the 
one which the Russians are trying to send out. That means 
strengthening an independent press. It means working with civil 
society organizations. It means basic programs that embassies 
run such as English language teaching so that Serbian youth 
have greater access to other sources of information as Russia 
itself is seeking to penetrate through the use of Serbian 
language radio programs providing the Russian message. And it 
means using our exchange programs. It means using our student 
visa programs to make sure that Serbian youth are aware of 
where America is, the values that we stand for, and the 
policies that we are putting forward.
    Senator Murphy. Well said.
    One just last piece of commentary, Mr. Chairman. Spending 
time in the Balkans is just an advertisement for how poorly 
resourced we are when it comes to our foreign aid budget. USAID 
I think has already pulled out or in the process of pulling out 
of Serbia, and so we have less tools than ever before to try to 
counter all of these resources and all of this money that 
Russia is flowing into these regions. And as we talk about a 
strategy to try to rebut their growing influence, it has got to 
involve giving more tools to our ambassadors in the region to 
try to do all of the things that you are saying because you are 
going to get there and you are going to realize that for as 
spot-on as you were about the things you need to do, you are 
just not going to have the resources that you need or that you 
want, and we have got to give it to you.
    Thank you for allowing me a little extra time, Mr. 
Chairman.
    Senator Johnson. We have got to prioritize spending.
    Let us go back to refugees. Mr. McKean, can you add 
anything to what you have already heard from the other 
nominees?
    Mr. McKean. Thank you, Senator Johnson.
    In Luxembourg, the refugee problem is not as acute as it is 
with its neighbors. It is a small country. It is actually 
relatively difficult to get there. But I think importantly that 
Luxembourg recognizes what an important issue this is, which is 
why it has actually contributed $24 million to Iraq and Syria 
and refugees in the Middle East at the source. As you know, we 
have contributed $4.5 billion, but again this is a significant 
contribution by Luxembourg.
    They have also recently for the least several months been, 
as I mentioned in my opening statement, President of the EU, 
and they have managed to forge a consensus on the resettlement 
of 160,000 refugees. I do not have the details on that, but it 
is a significant number. Obviously, it is going to require a 
lot more.
    Luxembourg itself has committed to taking 550 refugees over 
the next 2 years and, in fact, took the first 30 Syrians or 
those who had landed in Greece and were settled in Luxembourg.
    Senator Johnson. What is your sense of the current rate of 
flow of refugees? Increased? Has it tapered off? Is it steady?
    Mr. McKean. Well, I think it clearly increased about a 
month ago and is now steady, but it is significant. It is very 
significant. And of course, it is significant in a number of 
the countries that border Iraq and Syria as well. Turkey has a 
million, a million and a half in Lebanon, a million in Jordan.
    Senator Johnson. Mr. Torres, to what extent is the Peace 
Corps involved with this crisis?
    Mr. Torres. Senator, the Peace Corps does not get involved 
in refugee issues. So we do not do any work in the area of 
Syrian refugees.
    Senator Johnson. Senator Murphy mentioned the visa waiver 
program. We had a hearing in my committee, the Homeland 
Security and Government Affairs, talking about the Syrian 
refugee issue and the vetting process there. And I think the 
witnesses--you know, determined terrorists--the refugee program 
is probably not the most efficient way to get here, probably a 
relatively high risk of getting caught. But they expressed a 
fair amount of concern about the visa waiver program.
    Can you describe your concern? Does it present 
vulnerabilities? I will start with you, Ms. Hill.
    Ms. Hill. Thank you, Senator.
    As it relates to Malta, Malta is a visa waiver country. 
They are a member of the program. As far as refugees in Malta, 
because of the lengthy time in which it takes to even get 
declared as an official refugee in Malta, it can take up to a 
year for the Maltese to even declare an irregular migrant a 
refugee. Even then you only get refugee travel documents. That 
does not convey citizenship. Only citizens of visa waiver 
countries can travel on the visa waiver program. So from Malta, 
I see the threat as not very high at this point because it is 
so hard to get the citizenship, to get the actual citizenship 
passport. But if I am confirmed, I will certainly work with the 
Maltese Government to ensure that we maintain the security of 
the program and any enhancements that might be decided on back 
here in Washington.
    Senator Johnson. Mr. Rubin.
    Mr. Rubin. Thank you, Mr. Chairman.
    Bulgaria is trying to join the visa waiver program. At the 
moment the numbers for visa refusal rates are sufficiently high 
that that is not an immediate prospect. But if confirmed, I 
would make it a very high priority to ensure that in our 
discussions with the Bulgarians we made clear that we can only 
consider going forward under any circumstances if all of the 
security criteria were met.
    Bulgaria has done a very good job in information sharing 
with us on biometrics. It is difficult to get Bulgarian 
citizenship. They have done well on passport security and 
reporting stolen passports and false passports to international 
agencies, including Interpol. So I think the track record is 
good if that were to happen and that was something, obviously, 
I would take very seriously if I am confirmed and we continue 
to talk to them about this.
    Senator Johnson. Mr. Scott, are you aware of any 
vulnerabilities that concern you?
    Mr. Scott. Thank you very much, Mr. Chairman.
    Serbia is not a member of the visa waiver program, nor do 
they have any direct flights to the United States, although 
they are hopeful to begin direct flights to the United States 
around the summer of next year. In that sense, all Serbian 
citizens must receive visas. They must go through the standard 
name checking process that the visa process requires, and they 
also must have their biometrics taken during that process.
    But I think one of the things, should I be confirmed, that 
I would certainly be focusing on is ensuring that Serbia is as 
active as possible in information-sharing with our services on 
those people who might come to their attention who would be of 
concern.
    Senator Johnson. Again, I am asking based on past 
experience as well. Mr. McKean, are you aware of any 
vulnerabilities that concern you?
    Mr. McKean. Luxembourg is a member of the visa waiver 
program. There are no direct passenger flights between 
Luxembourg and the United States, so they must go through a 
connection hub. As Ms. Hill indicated, only citizens of 
Luxembourg would be appropriate for the visa waiver program, 
and there is a 7-year residency requirement in order to become 
a citizen of Luxembourg. So it is fairly stringent.
    Moreover, the Government of Luxembourg has been a very good 
partner in terms of sharing information. So I again would 
consider the vulnerability to be quite low. But I know that 
both Congress and the White House is looking at the program, 
and if there are any enhancement or changes, I would do 
everything possible, if confirmed, to make sure that the 
Government of Luxembourg complies with those changes.
    Senator Johnson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Mr. Scott, I want to pursue some of the line of questioning 
that Senator Murphy was raising with respect to Serbia. And I 
share his belief that we need to try and be more focused on 
what is happening in the Balkans. I think we have seen some 
tremendous progress there since Yugoslavia split up into all of 
the countries in the Balkans. And I think we need to do more 
and think about how better we can support them as they continue 
to look toward the West and certainly with Serbia as it is 
pursuing its entry into the EU. And I wonder if you could 
update me briefly on where they are with that and what concerns 
they might have before finishing their final process for 
membership in the EU.
    Mr. Scott. Thank you very much for the question, and I 
share very much your approach to the importance of the Balkans. 
The people of the Balkans have a saying that their own region 
is a barrel of gunpowder, and they recognize its potential for 
tensions.
    In the case of Serbia's ambitions to join the EU, I think 
that they are moving ahead. They are making significant 
progress, in fact, across the board. However, the current 
European Commission, which was brought in, has announced that 
no countries will be getting in over the next 5 years of this 
commission. So really, we are talking about serious preparatory 
work, making sure that they open chapters and close chapters in 
the--I believe it is 35 chapters that are necessary for 
admission into the European Union. We are very hopeful and, in 
fact, expect that in less than 2 weeks' time, they will open 
their first two chapters formally. They need to continue to 
make progress in opening and closing chapters over the period 
of the next coming years so that in fact when the European 
Union has reached a point where they are ready for new 
membership, that Serbia will be as ready as possible for that.
    As to the difficulties involved, clearly there are rule of 
law issues that still need to be addressed, but I think most 
experts would say the most difficult issues are those dealing 
with their neighbors, regional relations, and in particular 
their relationship with Kosovo. And one of the first two 
chapters in fact that will be opened on December 14 is chapter 
35, which deals with this very issue of relations with our 
neighbors and how to move forward. And here we are committed. I 
think it is unreasonable to expect that there is going to be 
massive, significant progress in the short term on this issue. 
What we are really talking about is a slow negotiation toward a 
comprehensive normalization of relations between Serbia and 
Kosovo over time.
    Senator Shaheen. Right. And I was very excited when I saw 
that Serbia and Kosovo had reached an initial agreement on how 
to move forward several years ago. How concerned do you think 
we should be about the unrest in Kosovo right now with respect 
to trying to begin implementation of that agreement?
    Mr. Scott. Thank you very much for the question.
    Of course, I will have to defer to Ambassador Delawie in 
Kosovo on the details of that.
    But I think what we have seen over time is the domestic 
politics in all of the countries of the region can have an 
impact on the pace of progress, and we have had other periods 
in which there have been holds as, after elections, countries 
have tried to put together governments and everything. So it is 
clear I think that having an authoritative government ready to 
move forward is a clear necessity for making significant 
progress. In that regard, all I can say is that in Serbia the 
Prime Minister and his government seem committed to moving 
forward on this process, and I look forward, should I be 
confirmed, to working with them to encourage progress in that 
direction.
    Senator Shaheen. I appreciate that.
    I was meeting with some officials from the Balkans this 
summer, and they raised concerns about Russian influence 
whenever there was an opportunity, potential unrest to 
encourage that unrest in subversive kinds of ways. To what 
extent are we seeing any of that kind of influence, or can you 
speak to that with what is going on right now in terms of the 
relationship between Serbia and Kosovo?
    Mr. Scott. I think that I would agree with your general 
view of Russian behavior in an attempt to essentially split 
allies apart and create areas of uncertainty and potential 
unrest, and we have seen that also in the western Balkans 
without a doubt. In the case of Serbia, their dependency on 
Russia, especially in the area of energy, is significant, and 
that is why I think it is important that the United States and 
the European Union are moving forward on efforts toward greater 
diversification of energy resources, toward a broader strategic 
plan for all of Europe to reduce dependencies upon Russia or 
any single source of energy. That is clearly the case in 
Serbia. Serbia imports all of its gas from Russia, and although 
the gas it imports is not all the gas they have, because they 
have their own domestic gas, the company which controls the 
domestic gas is also owned by Russia. But the government is 
clearly aware of that.
    I think working on interconnectors, especially the 
Bulgarian interconnector through the southern route, will be 
key, steps forward for the future. Also diversification of 
resources, and here I think there great opportunities for 
American companies in new and renewable sources of energy, 
carbon sequestration, and other issues where I think there are 
opportunities for cooperation with Serbia both for their 
benefit but also for our own.
    Senator Shaheen. I have to say before I leave Serbia that I 
had the opportunity to be part of the delegation to the 
memorial remembrance of the Srbenica massacre this summer, and 
I very much appreciated, despite the incident that happened 
there, the Serbian Prime Minister for going there, for meeting 
with the Bosnian officials and for paying his respects at that 
remembrance. And I certainly hope they will continue those 
kinds of symbolic gestures because I think they are very 
important in reducing tensions within the region.
    I am about to run out of time. But I want to go to you, Mr. 
Rubin, on the energy issues because you raised that in your 
testimony. And it is my understanding that there is a pipeline 
proposed across Greece that would have a spur that would go 
into Bulgaria, which if it were open, would be very positive in 
terms of providing some alternative energy for Bulgaria. It was 
described to me as a minor approval that is remaining for 
Greece before construction on that pipeline can begin.
    As Ambassador to Bulgaria, how do you see your role in 
trying to encourage those kinds of projects to get done so that 
there is energy diversification?
    Mr. Rubin. Thank you, Senator Shaheen.
    If I am confirmed, this will be absolutely one of the top 
priorities for me as Ambassador both because of the necessity 
of helping Bulgaria achieve diverse energy supplies but also 
because of the role that Bulgaria plays in the region as a 
potential energy hub.
    The interconnector pipeline that you described with Greece 
is close to agreement. I want to knock on the table when I say 
that. And I would like to believe that if I am confirmed, 
before I even get to post, it will have already been signed and 
agreed and work can start. They are very close. This has 
required agreements by both governments, as well as the 
European Union, and with the change of governments in Greece 
and other things, there have been, I think, some delays in just 
getting the agreement finalized, but there is an agreement in 
principal.
    It is not a large length of pipeline. It is actually not a 
very expensive project as these things go, and it would open up 
a tremendous new set of possibilities. One would be opening up 
the flow of trans-Caspian gas through Turkey to Bulgaria. The 
other would be the gas coming through Greece both through the 
connectors with western Europe but also through the LNG 
terminals in Greece.
    So it is a lot of bang for the buck, and they are close. 
And this will be a major priority to see this through and then 
to follow up with all the other priority projects to ensure 
that there is energy diversification for Bulgaria but also for 
the wider region.
    Senator Shaheen. Well, thank you. I think anything we can 
do to encourage that project and others are very important as 
we look at the long-term stability for the region.
    And that brings me back to Russian influence because, 
again, when I was meeting with eastern European officials--I 
did not meet with anyone from Bulgaria, but I certainly heard 
from some other of our eastern European allies a great concern 
about Russian influence in eastern Europe particularly. And 
this committee has had a hearing about what I would call 
propaganda that Russia is putting into eastern Europe on a 
daily basis and the amount of money that they are spending on 
that.
    So can you tell me is that something that the Bulgarians 
are concerned about? Are they seeing that kind of propaganda 
and the influence that it is bringing into the region? And what 
can you do as Ambassador to help respond to that?
    Mr. Rubin. Thank you, Senator.
    I think, if I am confirmed, this will be another of my very 
top priorities to personally get out there and aggressively 
make the case to Bulgarians across the country, not just in 
Sofia, but everywhere in the country in every group, whether it 
is young people or people who may not have traditional 
connections with the United States, who may not have seen 
American diplomats before, the importance of the shared values 
and the shared objectives that we have as NATO allies that we 
have as members of the Euro-Atlantic community.
    The good news, obviously, for Bulgaria is they have 
achieved membership in both NATO and the EU. That is hugely 
important, and the progress that they have made since 1991 is 
astounding. So there is a lot to celebrate. But there is a 
constant drumbeat in the background saying you will never get 
there. You are not going to be accepted. You ought to give up 
on this Western project and just come back to your natural 
location. And that is spread through local media. That is 
spread I think through all sorts of groups that receive 
subsidies to do that. So I think recognizing that working with 
our natural friends and allies in Bulgaria, which is a majority 
of Bulgarian society, a majority of the parliament who are 
strong supporters of the alliance, who recognize the value of 
this choice that the country has made, but then obviously as 
Ambassador, I and my team need to follow through and do 
everything we can to make the case ourselves and then to work 
to get the resources for that.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman. Okay. He is telling me to 
continue.
    So, Mr. McKean, first of all, let me say how nice it is to 
see you in that position, and having served on this committee 
when you were the committee staff director, we have missed you 
but you have gone on to do very important work. And I 
appreciate your willingness to continue to do that.
    Let me ask you about Luxembourg because there is a sense 
that some multinational corporations have tried to take 
advantage of the tax system in Luxembourg to avoid paying taxes 
in the United States. To what extent is that still the case, 
and have there been regulatory reforms that have made that 
harder to do?
    Mr. McKean. Thank you, Senator, and it is nice to see you 
again as well.
    Luxembourg I think as you know, is known not only as a tax 
haven but as a bank secrecy haven until fairly recently. And 
they have come into conformity with EU rules and regulations. I 
think those labels are now in the past. They have really 
abolished bank secrecy, and their banking industry has now 
diversified significantly.
    In terms of the tax issues, there are still outstanding tax 
issues that are focused on American companies operating in 
Luxembourg. The issue was that Luxembourg had very, very low 
tax rates that were unfairly impacting the rest of Europe. 
Those cases are being worked through in Brussels, and so my EU 
counterpart would be the person that would be focused on that.
    But I will say that Luxembourg has signed an agreement to 
implement the Foreign Account Tax Compliance Act which, as I 
understand it, will go a long way towards rectifying any tax 
issues that might be of note in this country.
    Senator Shaheen. Thank you.
    So just a final question for Ms. Hill. I know this is one 
panel where you do not mind not getting questions. [Laughter.]
    Because Chairman Johnson raised the refugee issue--and this 
is something that Malta, because of its geographic location, 
has been dealing with for a very long time, mostly economic 
migrants who are coming from Africa, as you pointed out. Has 
Malta been involved in the discussions at the EU about how to 
develop a policy to address the current refugee crisis? And do 
you know what kind of recommendations they would have for the 
current situation?
    Ms. Hill. Thank you, Senator Shaheen.
    Yes, Malta has been very involved in the current refugee 
crisis and the current discussions. Although they are still 
focused on that south to north migration, they did host the EU-
African Union Summit on migration earlier in November where 
they discussed various options for dealing with that particular 
set of irregular migrants going back and forth. They have been 
a heavy advocate of the burden-sharing plan that now is being 
inputted by the EU. Malta has been calling for this burden-
sharing plan for years, and it is finally being implemented 
with the current refugee crisis. So Malta has been very 
involved in the discussions and very much looking forward to a 
reasonable burden sharing of the migrant issue across the EU.
    Senator Shaheen. So they have had a very positive voice in 
the current discussions then.
    Ms. Hill. Yes. They have a very positive voice.
    Senator Shaheen. And are there other ways in which, as 
Ambassador representing the United States, that you see that 
the United States can support what Malta is encouraging and 
where the EU is moving with respect to how to deal with the 
refugee crisis?
    Ms. Hill. Yes, Senator. I think the United States has a lot 
of lessons learned that we can share with the EU, with Malta 
specifically. I think that we have been doing that. Our Coast 
Guard has been doing phenomenal work with the Maltese Armed 
Forces in how to deal with these overcrowded boats that are 
coming through the Mediterranean more effectively. We have also 
done a lot of information sharing and lessons learned sharing 
with the Maltese themselves about processing refugees more 
effectively and also providing for support services for 
refugees to better enhance their ability to live as refugees in 
a foreign country. So as Ambassador, I certainly plan to 
continue to encourage these programs and develop these programs 
particularly in Malta to help the Maltese deal with the refugee 
crisis.
    Senator Shaheen. Well, thank you very much. I would agree. 
I think we have--particularly our Department of Homeland 
Security has learned a lot because of what we experienced last 
summer on our southern border. And so some of those lessons 
that we have learned can be shared with other countries dealing 
with the current situation.
    So thank you all very much. And, again, thank you for your 
willingness to serve the country, and I look forward to as 
quick a confirmation process as we can move things in the 
Senate.
    Senator Johnson. Thank you, Senator Shaheen. I think you 
realize we are pretty well dedicated to moving along as well.
    By the way, that crisis has not ended at the southern 
border. It is on an uptick again.
    Again, I just want to thank all the family members here for 
coming to the hearing and for the support of the nominees in 
their efforts. I want to thank all the nominees, the witnesses, 
for your thoughtful testimony, your answers to our questions. 
And thank you for your service to the Nation and your 
willingness to serve in the future.
    So with that, the hearing record will remain open until 
December 4 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Eric Rubin, Nominated to be Ambassador to Luxembourg, to 
                Questions from Members of the Committee

                ambassador-designate rubin's responses 
                    to questions from senator cardin
    Question. Bulgaria has a large and abusive orphanage and 
psychiatric system. The recent European Court case of Stanev v. 
Bulgaria found inhumane and degrading treatment in Bulgaria's 
institutions and a lack of due process for people detained.

  <diamond> If confirmed, will you advocate for the implementation of 
        the European court's decision? As U.S. Ambassador to Bulgaria, 
        will you commit to actively advocating for its implementation?

    Answer. We advocate tirelessly for human rights and the rule of law 
in Bulgaria. If confirmed, I will commit to continuing this work, which 
is among our top priorities in Bulgaria and anywhere in the world. In 
April, Ambassador Ries, along with Kyustendil Mayor Paunov and Cedar 
Foundation Director Lindsay Saltzgiver, inaugurated a Social 
Rehabilitation and Integration Center that supports and helps integrate 
people with disabilities and other at-risk adults. The U.S. Government 
invested $275,000 in this facility.
    In promoting societies that include and empower persons with 
disabilities, we oppose discrimination against persons with 
disabilities everywhere and in all its forms. While we are not a party 
to the European Court of Human Rights, we support the swift 
implementation of decisions of courts with jurisdiction. This is 
especially salient when the decision pertains to a vulnerable 
population.
    The Stanev v. Bulgaria case does not relate to orphanages, but we 
have followed closely Bulgaria's concerted effort to reform its 
institutions for children. Bulgaria has made much progress moving 
children out of institutions into family-type settings. This year the 
government closed 13 institutions for parentless children as part of a 
plan to close all institutions by 2025 and replace them with 
alternative, community-based care. With the support of European Union 
funds, Bulgaria has built smaller centers for children, provided better 
childcare services by partnering with nongovernmental organizations, 
and stepped up foster care. Bulgaria knows more work needs to be done, 
and we will support it in those efforts.
    Bulgaria ranked third among Hague convention countries in the 
number of completed adoptions by U.S. families in FY14 (183). I am 
proud to say that 70 percent of children that Americans adopted in 
Bulgaria had special needs. The adoption procedure in Bulgaria is 
transparent and includes various safeguards to ensure greater security 
and predictability for all those involved in an intercountry adoption 
process. There is also an expedited procedure for children with special 
needs so that they may be quickly placed with eligible families as part 
of Bulgaria's commitment to deinstitutionalization.
    We are deeply concerned with any allegations of human rights 
abuses, and if confirmed, I will share the American values of 
respecting the judgment of the judiciary and treating all members of 
society with dignity and care.

    Question. There are currently 5,000 developmentally disabled 
children who are institutionalized throughout Bulgaria. What can the 
United States do to advocate for the reintegration of these children 
into their communities?

    Answer. We strongly promote human rights in Bulgaria. Our annual 
Human Rights Report tracks the progress Bulgaria makes on this front, 
and we will continue to support and advocate for the reintegration of 
children with developmental disabilities. Through embassy public 
diplomacy and exchange programs, we share the American experience of 
providing community-based services to children with disabilities, and 
promoting their transition out of institutions and integration into 
society.
    This year, the Bulgarian Government closed 13 institutions for 
children with disabilities, as part of a plan to close all institutions 
by 2025 and replace them with alternative, community-based care.
    The majority of the children from those institutions were relocated 
to family-type centers and a smaller number were accommodated in 
protected housing, reunited with their families, or placed in foster 
care. In the first 6 months of the year, 106 institutionalized children 
returned to their families, 326 were adopted, and 2,142 stayed with 
foster families. More than 1,600 children resided in the newly 
established centers (family-type homes, protected homes, and transition 
homes). The number of institutionalized children declined from over 
12,000 when the process of deinstitutionalization commenced to 1,632 as 
of July.
    A comprehensive domestic child welfare system can take decades to 
develop. We encourage countries to develop robust domestic child 
welfare systems that support family reunification, where appropriate, 
and domestic adoption. We also encourage countries to develop practices 
that are consistent with the Hague Convention on Protection of Children 
and Co-operation in Respect of Intercountry Adoption (Hague Adoption 
Convention), understanding that a child's best interests may be served 
both by intercountry adoption and improved child welfare systems.

                               __________

Responses of Kyle Scott, Nominated to be Ambassador to the Republic of 
           Serbia, to Questions from Members of the Committee

                ambassador-designate scott's responses 
                    to questions from senator cardin
    Question. Serbia is one of the few countries of the region to adopt 
a no-new-admission policy for placement of children in institutions. As 
a result, Serbia has one of the lowest rates of institutionalization in 
the world. Despite this, and an impressive governmental commitment to 
reform, community services for children with disabilities are still 
lacking.

  <diamond> What could the U.S. Ambassador to Serbia do to share the 
        U.S. experience with community integration of people with 
        disabilities?

    Answer. There are several resources the U.S. Ambassador to Serbia 
could draw on to highlight the need for well-funded community services 
for children with disabilities. Through embassy public diplomacy 
programs and exchange programs, the Embassy can share the American 
experience of providing community-based services to children with 
disabilities. Visits of American officials and experts, such as the 
recent visit of Special Advisor for International Disability Rights 
Judith Heumann, allows for senior-level engagement to discuss how the 
Serbian Government can better provide for persons with disabilities in 
Serbia. Embassy outreach to civil society activists and NGOs helps 
build awareness and public support for disability rights, and helps 
connect them with American activists to enhance their advocacy network.

    Question. Despite the progress in lowering the institutional 
population, Serbia has a legal capacity law that deprives individuals 
with mental disabilities of their right to make legal decisions or 
access the courts without support of a guardian.

  <diamond> What can the United States do to ensure access to justice 
        for people with disabilities?

    Answer. American officials can share the importance of providing 
access to justice for persons with disabilities on an equal basis with 
others. For example, Special Advisor for International Disability 
Rights Judith Heumann stopped in Serbia in early October to highlight 
the 25th anniversary of the Americans with Disabilities Act (the ADA), 
as well as the effective implementation and enforcement of disability 
rights laws, the international independent living movement, and the 
importance of governments and disabled people's organizations working 
together to advance the rights of persons with disabilities.

                               __________
                ambassador-designate scott's responses 
                   to questions from senator johnson
    Question. A 2014 U.S. State Department Report on Human Rights 
Practices in Serbia, and a March 11, 2015, European Parliament 
resolution highlight the need to strengthen the rule of law and 
judicial independence in Serbia. The State Department found that 
although the constitution provides for an independent judiciary, the 
courts remained susceptible to corruption and political influence.

  <diamond> If confirmed, what actions will you take to advance and 
        promote respect for judicial independence and rule of law in 
        Serbia?

    Answer. If confirmed, one of my top priorities will be to continue 
our efforts to address corruption and political influence in the 
judiciary. Currently, Embassy Belgrade provides significant assistance 
through USAID to increase both the independence and efficiency of the 
judiciary. Programming helps the courts learn how to assume 
responsibilities over financial and administrative operations, reduce 
case backlogs and processing times, and improve the enforcement of 
misdemeanor court decisions. Technical assistance through USAID 
provides substantive training to judges and court personnel on laws, 
procedures and ethics, and on methods for improving efficient case 
management. In some Misdemeanor Courts, minor renovations at minimal 
expense have significantly improved efficient use of space, 
accessibility to court information for the public, and increased safety 
for the public and court personnel.
    Our technical assistance to the High Court Council (HCC), which is 
charged with the administration and oversight of the judicial branch, 
helps establish the standards and procedures for measuring the 
performance of judges, prosecutors, and courtroom staff. In addition, 
our program is developing new standards for assigning, promoting, and 
sanctioning judges based on merit rather than on influence or political 
affiliation. Other areas of U.S. assistance include procurement and 
budget training that allows the HCC to develop court budgets that are 
strategic and needs-based. Finally, USAID support to Serbia's Judicial 
Academy is helping to ensure that judges and prosecutors have the basic 
skills they need to execute their duties and is establishing a regime 
of continuous learning so that judges and prosecutors skills are able 
to evolve with the changing body of law.
    If confirmed, I will work to continue and expand these areas of 
support.

                               __________


                              NOMINATIONS

                              ----------                              


                      THURSDAY, FEBRUARY 11, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                              ----------                              

Hon. Karen Brevard Stewart, of Florida, nominated to be 
        Ambassador to the Republic of the Marshall Islands
Robert Annan Riley III, of Florida, nominated to be Ambassador 
        to the Federated States of Micronesia
Swati A. Dandekar, of Iowa, nominated to be United States 
        Executive Director of the Asian Development Bank
Matthew John Matthews, of Oregon, nominated to be United States 
        Senior Official for the Asia-Pacific Economic 
        Cooperation, APEC, Forum
Marcela Escobari, of Massachusetts, nominated to be an 
        Assistant Administrator of the United States Agency for 
        International Development
                              ----------                              


    The committee met, pursuant to notice, at 10:15 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senators Gardner [presiding], Cardin, and Murphy.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to today's full Senate Foreign 
Relations Committee hearing on nominations.
    I want to thank Senator Cardin for his work and cooperation 
in setting up this hearing today and, of course, the work that 
this committee did yesterday, as I think Senator Cardin 
mentioned to you, the excellent work of the Foreign Relations 
Committee, resulting in a very strong bipartisan bill 
addressing our concern with North Korea. So we are going to 
continue that bipartisan effort today.
    We have a panel of five very well qualified nominees today, 
and I want to thank each and every one of them and their 
families for your willingness to serve, for your commitment to 
this country, and for being here today. I have had the 
opportunity to meet and speak with most of you and privately as 
well, and I appreciate your time being here today.
    And I would ask the nominees to keep their remarks to no 
more than 5 minutes. We are on a little bit of an abbreviated 
schedule or I guess interrupted schedule today because of the 
fact that we have several votes that are going to be occurring 
within the next 15 to 20 minutes. And so you will see members 
come in and out, and I apologize for that as they make the 
vote.
    And we are also going to be interrupted by the irascible 
Senator from Iowa who is going to be joining us today and 
making some comments on our nominee from Iowa.
    Senator Cardin, I will turn to you as well.

           STATEMENT OF SENATOR BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I really 
want to thank Chairman Gardner for making the arrangements so 
that we could have five nominees here today. We want to be able 
to act in an efficient manner in this committee. We have under 
Chairman Corker and Chairman Gardner, and I thank you very much 
for accommodating these hearings.
    Just so people understand, a lot of the work on a 
confirmation process is done before the individuals appear 
before our committee, the material they submit to us, their 
records, et cetera. And this is an important part of the 
nominating process.
    But I just really want to underscore what Chairman Gardner 
said, and that is thank you. Each one of you has had a long, 
distinguished career in public service, serving our country, 
serving your State, and it is an incredible sacrifice to you 
personally but also to your families. So I saw some young 
people walking around outside. So I think we have some family 
members here.
    Senator Gardner. They certainly were not Senators. 
[Laughter.]
    Senator Cardin. So we thank the family members for being 
here because we know this truly is a family event.
    Mr. Chairman, what I will do is I will put my entire 
opening statement in the record where I say very glowing things 
about each one of you and your service, which is incredible. 
You served all over the world. You served in the State 
legislature. You have devoted yourself to public service, and 
many of you are career senior diplomats. And now you are going 
to be taking on critically important positions in East Asia, 
critically important positions in the economic forum and in our 
own hemisphere where we have some significant challenges. So 
thank you for being willing to do that.
    [The prepared statement of Senator Cardin follows:]


            Prepared Statement of Senator Benjamin L. Cardin

    Let me start by thanking Senator Gardner for arranging this hearing 
on these five important nominations. I know that this week has been a 
very busy time for the Senate Foreign Relations Committee especially 
with regards to Asia-Pacific issues, but one of our primary 
responsibilities is to timely consider the President's nominees, so I 
want to thank you for accommodating this hearing, with its sizable 
number of nominees.
    I also want to thank these nominees for their public service and 
for their willingness to serve their country in these critical posts 
during a very trying time for this country. For several of you before 
us, you are willing to perform this service to our country in places 
far away from where we sit today. So I also want to thank your 
families, because these postings are truly a family effort, and a 
family sacrifice.
    First, Ambassador Karen Stewart, has had a distinguished career as 
a career member of the Senior Foreign Service. She served as Ambassador 
to Laos from 2010 to 2013, and as Ambassador to Belarus from 2006 to 
2008. Most recently she served as Political Advisor to the Vice 
Chairman of the JointChiefs of Staff and to the Supreme Allied 
Commander Transformation since 2013. I am sure that, if confirmed, her 
broad mix of senior domestic and overseas experience will be a huge 
asset in her position, if confirmed, as Ambassador to the Marshall 
Islands.
    Second, Mr. Robert Riley is also a Career Member of the Senior 
Foreign Service, and currently serves as a Management Counselor at our 
U.S. Embassy in Jakarta. Mr. Riley has over 35 years of experience in 
management and is recognized in the Foreign Service as an effective 
negotiator and team leader. I am sure that his experience as a Peace 
Corps volunteer will serve him well as Ambassador to Micronesia, if 
confirmed, which has a strong Peace Corps presence.
    Let me just say that while it may not get as much attention as it 
should, the Pacific Islands including the Marshall Islands and the 
Federated States of Micronesia, represent a critical part our rebalance 
to the Asia-Pacific.
    The Pacific Islands help the United States uphold important 
principles such as freedom of navigation and free and unfettered 
commerce. The United States, as a Pacific nation, with a long history 
when it comes to these islands knows that this region is strategically 
and economically vital and becoming more so.
    Most recently we have looked to the Pacific nations for leadership 
on some of the world's most complex and urgent issues of our time.
    In Paris, during the international negotiations towards a new 
global cooperative agreement on climate change, delegations from the 
tiny island nations, especially the Marshall Islands, were a strong and 
constructive force in brokering the final deal. Perhaps that's because 
these nations, more so than perhaps any other in the world, understand 
the harsh, grim realities of climate change.
    To put it bluntly, these countries are disappearing from the Earth 
because of sea level rise caused by climate change. This is not some 
far off probability or theoretical outcome--IT IS HAPPENING NOW.Today's 
generations of Marshallese, Micronesians, Kiribase (citizens of 
Kiribati), and Palauans may be the last to inhabit their countries. 
Flooded buildings, as well as saltwater inundation of arable land and 
fresh drinking water sources, are quickly making the low lying islands 
of these atolls uninhabitable.
    Climate change is at the forefront of these country's concerns. I 
strongly encourage our nominees, if confirmed, to keep the State 
Department and the Congress aware of the dire circumstances facing 
these countries. I would urge all members of this committee to pay 
attention to the plight of these nations and contemplate what our 
responsibilities are to the people of the Compact of Free Association 
nations as they face a very real existential crisis.
    Our next nominees are being considered for positions at the Asian 
Development Bank and the Asian Pacific Economic Cooperation Forum. With 
so much global economic news coming out of that region, these will be 
important jobs for our international economic diplomacy.
    So I want to welcome Mrs. Swati Dandekar, the nominee for United 
States Executive Director to the Asian Development Bank. She is a 
former Iowa state legislator and a Democratic member of the Iowa 
Utilities Board. She was a member of the Iowa House of Representatives 
for the 36th District from 2003 to 2009 and a member of the Iowa Senate 
for the 18th District from 2009 to 2011.
    Mrs. Dandekar serves as the Chair (formerly President) of the 
National Foundation for Women Legislators and as a board member of the 
Iowa Math and Science Coalition. She previously served on the Iowa 
Association of School Boards, and as a board member of the Women in 
Public Policy (Iowa Charter), and the U.S. Center for Citizen 
Diplomacy.
    Also, we have with us Mr. Matthew Matthews, nominee to the rank of 
Ambassador during his tenure of service as United States Senior 
Official for the APEC Forum, a position for which he is well prepared, 
Mr. Matthews is a career member of the Senior Foreign Service. He 
assumed his position as the Deputy Assistant Secretary for Australia, 
New Zealand and the Pacific Islands and concurrently as the Senior 
Official for APEC on June 16, 2015. He was Counselor for Economic 
Affairs at the U.S. Embassy in Kuala Lumpur, Malaysia, focusing on 
trade issues that set the stage for Malaysia's entry to the TPP 
negotiations, and at the U.S. Embassy in Canberra, Australia, where he 
focused on implementation of our bilateral FTA. Prior to that, while 
serving as the Chief of the Internal Unit in the Economic Section at 
the U.S. Embassy Beijing (2001-04), Matt led a team which worked 
extensively on Chinese macroeconomic and financial reform Issues.
    Finally, we have Ms. Marcela Escobarri, who is the Executive 
Director of the Harvard Center for International Development and our 
nominee to be the next Assistant Administrator for Latin America and 
the Caribbean. Ms. Escobarri's extensive experience on development in 
the Western hemisphere and around the world will be of critical 
importance to responding to the public health crisis caused by the Zika 
virus, tackling the many challenges in Central America, supporting the 
implementation of a potential peace deal in Colombia, and addressing 
the political, social and economic difficulties that Haiti continues to 
face.
    So, Mr. Chairman, we are very fortunate to have before us all of 
these dedicated Americans, who have devoted so much of their 
professional lives to serving our country. I look forward to hearing 
from each of you on your priorities and interests, and if confirmed, 
how you will work to further U.S. interests and values abroad.


    Senator Gardner. And thank you, Senator Cardin.
    Turning to our nominees, we will begin with Karen Brevard 
Stewart, our nominee for the Ambassador to the Republic of the 
Marshall Islands. She is a career member of the Senior Foreign 
Service and has been since 2013. I guess she has served as 
Political Advisor since 2013 for the Vice Chairman of the Joint 
Chiefs of Staff. She is a two-time Ambassador to Laos from 2010 
to 2013 and to Belarus from 2006 to 2008. Welcome, Ambassador 
Stewart.
    I am going to introduce all of you and then we will get to 
your comments.
    Robert Riley is our nominee to the Federated States of 
Micronesia. He is a career member of the Foreign Service and 
since 2013 has served as Management Counselor at the U.S. 
embassy in Jakarta, Indonesia. Welcome, Mr. Riley.
    Matt Matthews is up for the rank of Ambassador during his 
tenure of service as the United States Senior Official for the 
Asia-Pacific Economic Cooperation Forum, and since 2015 has 
served as Deputy Assistant Secretary of State in the Bureau of 
East Asian and Pacific Affairs and concurrently as the Senior 
Official for APEC. Welcome, Mr. Matthews.
    Ms. Marcela Escobari is our nominee for Assistant 
Administrator of the United States Agency for International 
Development. Since 2007, she has served as Executive Director 
of the Center for International Development at Harvard 
University.
    I am missing one here. Swati Dandekar. We will be hearing 
your testimony as well. Senator Grassley is going to introduce 
you. So I am not going to introduce you at all. [Laughter.]
    Senator Gardner. I thought was making some comments, but he 
has got them all.
    So we will go ahead and start with you, Ms. Stewart. Thank 
you.

STATEMENT OF HON. KAREN BREVARD STEWART, OF FLORIDA, NOMINATED 
    TO BE AMBASSADOR TO THE REPUBLIC OF THE MARSHALL ISLANDS

    Ambassador Stewart.  Thank you, Mr. Chairman and members of 
the committee. I am deeply honored to appear before you today 
as the President's nominee to be United States Ambassador to 
the Republic of the Marshall Islands. I am grateful to the 
President and the Secretary for their confidence in nominating 
me for this position, and I am equally grateful to you to 
receive your consideration.
    With the chairman's permission, I would like to just 
briefly introduce some of my family who were able to make it 
here today: my sister-in-law, Kate Stewart; my niece and her 
husband, Katherine and Joe Stallings; a very dear friend, Alice 
Buckhalter--all of them are from Maryland, Senator--and then 
several friends from my church----
    Senator Cardin. That was a good call. [Laughter.]
    Senator Cardin. I should point out that Mr. Riley was born 
in Baltimore. That was also pointed out in the resume. Any 
other connections, please bring them up. [Laughter.]
    Ambassador Stewart.  As a Foreign Service officer, I have 
been privileged to serve in a varied and fascinating mix of 
assignments, including the honor of serving as U.S. Ambassador 
to Belarus and to Laos. If confirmed, I will draw on the 
lessons learned in these assignments and my many years of 
regional policy experience to advance the United States' 
strategic interests in the Pacific.
    The Republic of the Marshall Islands is a key partner in 
the United States' deepening relationship with the Pacific. Our 
two nations have a close and special relationship dating back 
to the end of the Second World War and United States' 
administration of the U.N. Pacific Islands Trust Territory. In 
1983, the Marshall Islands and the United States concluded the 
Compact of Free Association, which then entered into force in 
1986. We thus entered into the new phase of our relationship 
with the RMI. And this compact, which was amended in 2003 to 
extend greater economic assistance, now provides the structure 
for much of our bilateral relationship.
    The mutual security of our nations is a core feature of 
this special relationship. Under the compact, the United States 
has committed to defend the RMI and its people from attack or 
threats as the United States and its citizens are defended. The 
United States also enjoys access to Marshallese ports, 
airports, and airspace, a vital asset for our defense and 
security needs. The RMI hosts the U.S. Army's Ronald Reagan 
Ballistic Missile Defense Test Site on Kwajalein Atoll. This is 
a major U.S. missile testing and also space tracking and 
operations facility. And under the amended compact, the United 
States has access to Kwajalein through 2066 with the option to 
extend until 2086.
    If confirmed, I will work to maintain the strong 
relationship between the Kwajalein facility and the Marshall 
Islands Government and to promote its benefits for affiliated 
Marshallese communities.
    The United States and the Marshall Islands also have an 
important economic relationship. To help achieve the amended 
compact goal of economic self-sufficiency, the United States, 
through the Department of the Interior, will provide the 
Government of the RMI with roughly $70 million a year through 
fiscal year 2023. Approximately $35 million of this is provided 
in annual grant assistance, targeting health, education, public 
infrastructure, environment, public and private sector capacity 
development.
    Another very important aspect of the amended compact is a 
jointly managed trust fund that will serve as a source of 
income for the Marshall Islands after the compact's direct 
grant assistance ends. If confirmed, I will promote outcome-
oriented, sustainable economic development and strongly 
advocate for the wise and accountable use of our assistance to 
support Marshallese capacity to build a prosperous and healthy 
future.
    Under the amended compact, most citizens of the RMI can 
live, study, and work in the United States without a visa.
    The RMI Government has an excellent voting record with the 
United States in the United Nations, sharing our positions on 
many important issues, including on human rights and Israel.
    The RMI is also a close ally of the United States in the 
multilateral climate change negotiations. As one of the nations 
most vulnerable to the impacts of a rise in sea level, the RMI 
played a crucial role last December in Paris in furthering our 
shared goal of ensuring ambitious action by all major 
greenhouse gas-emitting countries, both developed and 
developing, in order to reach a historic international 
agreement. If confirmed, I will continue to work 
collaboratively with the RMI to tackle environmental 
challenges.
    The RMI is a vibrant democracy that conducted another free 
and fair election just last November and recently installed a 
new government. In working with this new government, we will 
continue to look to the RMI as a reliable partner that strongly 
backs U.S. engagement in the Pacific and supports U.S. 
strategic priorities around the globe. If confirmed, I will 
continue the fine work of Ambassador Armbruster by working 
closely with the Department of the Interior, the Department of 
Defense, and the rest of the interagency community to 
strengthen a bilateral relationship based on partnership and 
mutual respect between the Marshallese and American people.
    Mr. Chairman, in closing, I would like to emphasize that 
the Republic of the Marshall Islands was part of our trust 
territory but is now our good friend. The people of RMI are 
woven into the American fabric, serving with distinction and 
honor in our military and living and working beside us in the 
United States. The Marshall Islands remains a dependable 
partner in bolstering security in the Pacific. As the economic 
center of gravity shifts to the Asia-Pacific region, the 
importance to U.S. interests of a stable, increasingly 
prosperous, and democratic Marshall Islands continues to grow. 
If confirmed, I look forward to working with you in pursuit of 
that goal.
    I appreciate this opportunity to appear before you today 
and am pleased to answer your questions.
    [The prepared statement of Ambassador Stewart follows:]


                  Prepared Statement of Karen Stewart

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the President's nominee to be United States 
Ambassador to the Republic of the Marshall Islands. I am grateful to 
the President and the Secretary for their confidence in nominating me 
for this position, and am equally grateful to receive your 
consideration.
    As a Foreign Service Officer, I have been privileged to serve in a 
varied and fascinating mix of assignments, including the honor of 
serving as U.S. Ambassador to the Republic of Belarus and to the Lao 
People's Democratic Republic. If confirmed, I will draw on the lessons 
learned in these assignments and my many years of regional policy 
experience to advance the United States' strategic interests in the 
Pacific.
    The Republic of the Marshall Islands is a key partner in the United 
States' deepening relationship with the Pacific. It is an isolated, 
sparsely populated, low-lying Pacific island country consisting of 
approximately 70 square miles of land spread out over 750,000 square 
miles of ocean southwest of Hawaii and just north of the equator. These 
characteristics make it vulnerable to natural disasters and the effects 
of climate change. Our two nations have a close and special 
relationship dating back to the end of the Second World War, when the 
United Nations entrusted the United States with the administration of 
the Pacific Islands Trust Territory. In 1983, the Marshall Islands and 
the United States concluded the Compact of Free Association, which its 
people approved in a plebiscite a few months later and which entered 
into force in 1986 upon Congressional approval. We thus entered into a 
new phase of our relationship with the RMI. This Compact, which was 
amended in 2003 to extend greater economic assistance, provides the 
structure for much of our bilateral relationship. Mutual security of 
our nations is a core feature of the special relationship between the 
United States and the Marshall Islands. The RMI has no military of its 
own. Under the Compact, the United States has committed to defend the 
RMI and its people from attack or threats as the United States and its 
citizens are defended. The United States also enjoys access to 
Marshallese ports, airports and airspace, a vital asset for our defense 
and security needs. The RMI hosts the U.S. Army's Ronald Reagan 
Ballistic Missile Defense Test Site on Kwajalein Island (known as USAG-
KA). The base is the country's second largest employer, second only to 
the RMI government. The test site plays a significant role in the U.S. 
missile defense research, development, and testing network. It is used 
to monitor foreign launches and provide deep-space tracking and is an 
ideal near-equator launch-site for satellites. In February 2015, the 
U.S. Air Force and Lockheed Martin broke ground at the future six-acre 
site of the new Space Fence next-generation radar system at the base. 
When it comes online in 2018, Space Fence will enable the Air Force to 
locate and track hundreds of thousands of objects orbiting Earth with 
more precision than ever before, helping reduce the potential for 
collisions with our critical space-based infrastructure. Under the 
Amended Compact, the United States has access to Kwajalein through 
2066, with the option to extend until 2086.
    Continued access is important, but just as important is a good 
relationship with the Marshallese. If confirmed, I will work to 
maintain the strong relationship between USAG-KA and the Marshall 
Islands government and to promote USAG-KA's beneficial role for 
affiliated Marshallese communities.
    The United States and the Marshall Islands also have an important 
economic relationship. To help achieve the Amended Compact goal of 
economic self-sufficiency, through the Department of the Interior, the 
United States will provide the Government of the RMI with roughly $70 
million a year through FY2023. Approximately $35 million is provided in 
annual grant assistance, targeting health, education, public 
infrastructure, environment, public sector capacity development, and 
private sector capacity development. Priority is given to education and 
healthcare, including addressing the high prevalence of diabetes, heart 
disease and other non-communicable diseases.
    Another very important aspect of the Amended Compact is a jointly-
managed Trust Fund that will serve as a source of income for the 
Marshall Islands after annual direct grant assistance ends under the 
Amended Compact in FY 2023. If confirmed, I will promote outcome-
oriented sustainable economic development and strongly advocate for the 
wise and accountable use of our assistance to support Marshallese 
capacity to build a prosperous and healthy future.
    Under the Amended Compact, most citizens of the RMI can live, 
study, and work in the United States without a visa. The Compact 
obliges the two countries to consult on certain matters of foreign 
policy. The RMI government has an excellent voting record with the 
United States in the United Nations, sharing our positions on many 
important issues, including on human rights and Israel. The RMI is also 
a close ally of the United States in the multilateral climate change 
negotiations. As one of the most vulnerable nations to the impacts of 
climate change, the RMI played a crucial role last December in Paris in 
furthering our shared goal of ensuring ambitious action by all major 
green-house gas emitting countries, both developed and developing, in 
order to reach a historic international climate agreement. If 
confirmed, I will continue to work collaboratively with the RMI to 
tackle climate challenge, and also support efforts of the U.S. Mission 
to further assist the RMI in adapting to the impacts of climate change.
    The RMI is a vibrant democracy that conducted another successful, 
free and fair election just last November and recently installed a new 
government. In working with this new government, we will continue to 
look to the RMI as a reliable partner that strongly backs U.S. 
engagement in the Pacific and supports U.S. strategic priorities around 
the globe. If confirmed, I will continue the fine work of Ambassador 
Armbruster by working closely with the Department of the Interior, the 
Department of Defense, and the rest of the interagency community to 
strengthen a bilateral relationship based on partnership and mutual 
respect between the Marshallese and American people.
    Mr. Chairman, in closing, I would like to emphasize that the 
Republic of the Marshall Islands was part of our trust territory, but 
is now our ally. The people of RMI are woven into the American fabric, 
serving with distinction and honor in our military and living and 
working beside us in the United States. The Marshall Islands remains a 
dependable partner in bolstering security in the Pacific. As the 
economic center of gravity shifts to the Asia-Pacific region, the 
importance to U.S. interests of a stable, increasingly prosperous, and 
democratic Marshall Islands continues to grow. If confirmed, I look 
forward to working with you in pursuit of that goal.
    I appreciate the opportunity to appear before you today and am 
pleased to answer your questions.


    Senator Gardner. Thank you, Ambassador Stewart. Thank you 
very much for your testimony.
    We will turn to Mr. Riley. Mr. Riley, again our nominees to 
the Federated States of Micronesia, please proceed with your 
testimony.

 STATEMENT OF ROBERT ANNAN RILEY III, OF FLORIDA, NOMINATED TO 
      BE AMBASSADOR TO THE FEDERATED STATES OF MICRONESIA

    Mr. Riley. Thank you, Mr. Chairman and members of the 
committee.
    I am honored to appear before you today and am grateful to 
President Obama and Secretary Kerry for their confidence in 
nominating me to be United States Ambassador to the Federated 
States of Micronesia, or FSM. If confirmed, I welcome the 
opportunity to work with you, this committee, and other members 
of Congress to advance American interests in the Pacific. I am 
thrilled to be associated again with our embassy in the FSM, as 
I supported the operations of Embassy Kolonia while assigned to 
our embassy in Manila from 2009 to 2013, and I count myself 
fortunate to be a member of a select group to have worked with 
our mission in this beautiful but faraway country.
    My sense of service growing up in Annapolis, Maryland was 
inculcated in me by my late father and namesake, a highly 
dedicated doctor, who devoted himself to his patients and 
waived his fees for the poor, and by my 90-year-old mother 
Fritzi, who raised her four children selflessly while my father 
worked. She also began her bachelor's degree at age 40, 
finished her master's at 55, and then worked as a college 
professor until when was 70.
    My stepfather, John Kenney, is an active and wonderful man, 
who married my mother when he was 88 and she was 85. My dear 
lovely Timmy is here today. She provides loving support and 
encouragement. One of my two beautiful and talented daughters 
Carol is also present. My other older daughter Susan is a Peace 
Corps volunteer in China. My very good friend, Buddy Shanks, is 
also here.
    The FSM consists of over 600 mountainous islands and low-
lying coral atolls spread over 1 million squares of the Pacific 
Ocean. It faces inherent challenges to economic development, 
including susceptibility to natural disasters, remoteness from 
major markets, and limited land resources. The United States 
and the FSM have enjoyed a close and special relationship for 
over 65 years. In 1947, the United Nations designated the 
United States as the Administrating Authority of the Trust 
Territory of the Pacific Islands, including what is known today 
as the FSM. And in 1986, the Compact of Free Association 
between the FSM and the United States entered into force, 
ushering a new phase in our bilateral relationship.
    The compact, as amended in 2003, provides the framework for 
much of our bilateral relationship. Under the amended compact, 
most citizens of the FSM may live, study, and work in the 
United States without a visa. In addition, the United States is 
committed to providing over $107 million per year in direct 
economic assistance and trust fund contributions through 2023. 
After U.S. contributions to the trust fund and direct sectoral 
assistance under the amended compact end in 2023, the FSM will 
begin to draw distributions from the trust fund. The FSM faces 
a critical juncture as it shifts from direct financial 
assistance to the use of trust fund distributions. If 
confirmed, I will work constructively with the Government of 
the FSM, encouraging it to make the structural reforms needed 
to ensure its sustained development beyond 2023.
    While U.S. contributions to the trust fund and direct 
economic assistance under the amended compact will end in 2023, 
the amended compact itself does not expire. Unless otherwise 
stated, the amended compact will remain in effect until 
terminated according to its terms. If confirmed, I will do my 
best to reassure the people of the FSM that the United States 
remains committed to assisting the FSM as it faces the 
challenges of the coming decades.
    The FSM is an important partner in our Pacific engagement. 
The mutual security of our nations is an underlying element of 
our special relationship. The FSM has no military of its own. 
Under the amended compact, the United States is committed to 
defending Micronesia and its people from attack or threats as 
the United States and its citizens are defended. If confirmed, 
I will work closely with the Government of FSM to highlight our 
strong support for regional security.
    The importance of our strong relationship with the FSM 
extends beyond defense considerations. The FSM is a loyal 
friend and ally in many other ways. For example, the FSM votes 
with the United States at the United Nations over 90 percent of 
the time. Our people-to-people ties also continue to grow. 
There are 47 Peace Corps volunteers currently serving in the 
FSM. If confirmed, I will draw on my Peace Corps experience to 
work with the Peace Corps and the Government of the FSM to 
enhance the success of this valuable program.
    Finally, the FSM is among the small island nations already 
impacted by climate change. If confirmed, I will support 
efforts by the Department of the Interior and other Federal 
agencies to further assist the FSM in adapting to the impacts 
of climate change, including by integrating climate change 
adaptation considerations into long-term planning.
    In closing, I can think of no greater honor or opportunity 
than to lead the U.S. mission in the FSM and work with our 
valued Micronesian friends on these and other important issues. 
It is a time of renewed focus on our role in the Pacific, and I 
am excited to be part of it. Thank you for the opportunity to 
appear before you, and I am happy to answer your questions.
    [The prepared statement of Mr. Riley follows:]


                   Prepared Statement of Robert Riley

    Mr. Chairman and members of the committee, I am honored to appear 
before you today and am grateful to President Obama and Secretary Kerry 
for their confidence in nominating me to be United States Ambassador to 
the Federated States of Micronesia (FSM). If confirmed, I welcome the 
opportunity to work with you, this committee, and other members of 
Congress to advance American interests in the Pacific. I am thrilled to 
be associated again with our Embassy in the FSM, as I supported the 
operations of Embassy Kolonia while assigned to our Embassy in Manila 
from 2009 to 2013, and I count myself fortunate to be a member of a 
select group to have worked with our Mission in this beautiful but 
faraway country.
    My sense of service was inculcated in me by my late father and 
namesake, a highly dedicated doctor who devoted himself to his patients 
and waived his fees for the poor, and by my 90-year-old mother, Fritzi, 
here today, who raised her four children selflessly while my father 
worked, started work on her Bachelor's degree at age 40, finished her 
Master's degree at 55, and then worked as a college professor until she 
was 70.
    Also present is my step-father, John Kenny, an active and wonderful 
man, who married my mother when he was 88, and she was 85. My dear wife 
Timmy was unable to make it today; she is keeping the home fires 
burning at my current post in Indonesia. My two beautiful daughters 
were also unable to be here--Susan is a Peace Corps Volunteer in China, 
and Carol is attending college in California.
    The FSM consists of over 600 mountainous islands and low-lying 
coral atolls spread over one million square miles of the Pacific Ocean. 
It faces inherent challenges to economic development, including 
susceptibility to natural disasters, remoteness from major markets, and 
limited land resources. The United States and the FSM have enjoyed a 
close and special relationship for over 65 years. In 1947, the United 
Nations designated the United States as the Administrating Authoring of 
the Trust Territory of the Pacific Islands, which included the FSM, 
and, in 1986, the Compact of Free Association between the FSM and the 
United States entered into force, ushering in a new phase in our 
bilateral relationship.
    This Compact, as amended in 2003, provides the framework for much 
of our bilateral relationship. Under the Amended Compact, most citizens 
of the FSM may live, study, and work in the United States without a 
visa. In addition, the United States is committed to providing over 
$107 million per year in direct economic assistance and Trust Fund 
contributions through 2023. After U.S. contributions to the Trust Fund 
and direct sectoral assistance under the Amended Compact end in 2023, 
the FSM will begin to draw distributions from the Trust Fund. The FSM 
faces a critical juncture as it shifts from direct financial assistance 
to the use of Trust Fund distributions. If confirmed, I will work 
constructively with the government of the FSM, encouraging it to make 
the structural reforms needed to ensure its sustained development 
beyond 2023.
    While U.S. contributions to the Trust Fund and direct economic 
assistance under the Amended Compact will end in 2023, the Amended 
Compact itself does not expire. Unless otherwise stated, the Amended 
Compact will remain in effect until terminated according to its terms. 
If confirmed, I will do my best to reassure the people of the FSM that 
the United States remains committed to assisting the FSM as it faces 
the challenges of the coming decades.
    The FSM is an important partner in our Pacific engagement. The 
mutual security of our two nations is an underlying element of our 
special relationship.
    The FSM has no military of its own. Under the Amended Compact, the 
United States is committed to defending Micronesia and its people from 
attack or threats as the United States and its citizens are defended. 
If confirmed I will work closely with the Government of FSM to 
highlight our strong support for regional security.
    The importance of our strong relationship with the FSM extends 
beyond defense considerations. The FSM is a loyal friend and ally in 
many other ways. For example, the FSM votes with the United States at 
the United Nations over 90 percent of the time. Our people-to-people 
ties also continue to grow. There are 47 Peace Corps Volunteers 
currently serving in the FSM. If confirmed, I will draw on my Peace 
Corps experience to work with the Peace Corps and the Government of the 
FSM to enhance the success of this valuable program.
    Finally, the FSM is among the small island nations already impacted 
by climate change. If confirmed, I will support efforts of the U.S. 
Mission to further assist the FSM in adapting to the impacts of climate 
change, including by integrating climate change adaptation 
considerations into long-term planning.
    In closing, I can think of no greater honor or opportunity than to 
lead the U.S. Mission in the FSM and work with our valued Micronesian 
friends on these and other important issues. It is a time of renewed 
focus on our role in the Pacific, and I am excited to be part of it. 
Thank you for the opportunity to appear before you and I am happy to 
answer your questions.


    Senator Gardner. Thank you, Mr. Riley.
    And I see Senator Grassley has arrived at the hearing. Now, 
I will, Ms. Dandekar, warn you that perhaps the only way to 
outdo the flattery of the Senator from Maryland is you may or 
may not want to mention ethanol after your remarks. [Laughter.]
    Senator Gardner. But with that, we will turn to Senator 
Grassley for the introduction of Ms. Dandekar, our nominee to 
be United States Director of the Asian Development Bank.

               STATEMENT OF HON. CHUCK GRASSLEY, 
                     U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you, Mr. Chairman, and thank you, 
Ranking Member Cardin.
    My short statement will not give enough credit to her 
devotion to public service. I want to emphasize that, but I 
still want to say these few words anyway.
    Thank you for allowing me to introduce to the committee Ms. 
Swati Dandekar and her husband Arvind Dandekar. Now, I happen 
to have known her and her husband personally for many years. 
Swati immigrated to the United States from India in 1973, 
earned her bachelor's degree from Nagpur University and a post-
graduate diploma from Bombay University, India.
    Swati began her public service as a member of Linn-Mar 
School Board in 1996 and then served there until she was 
elected to the Iowa House of Representatives in 2002. With her 
election to the Iowa House of Representatives, she became the 
first Indian-born American to hold a State legislative 
position. She served on the Appropriations Committee, Economic 
Growth and Economic Development Appropriations Subcommittees, 
as well as the Education and Transportation Committees there in 
the Iowa House.
    She was also appointed to the Vision Iowa Board by then 
Governor Vilsack, now our Secretary of Agriculture. This board 
awarded communities across Iowa with grants and funding for 
community and economic development projects.
    In 2008, Swati was elected to the Iowa Senate where she 
became the first Democratic woman to chair the Senate Commerce 
Committee.
    In 2011, she was elected President of the National 
Foundation of Women Legislators where her national platform 
consisted of STEM education and increased application of 
broadband communication for economic growth.
    Republican Governor Branstead appointed Swati to the Iowa 
Utilities Board as its Democratic member in 2011, where she 
served until 2013.
    Swati has led numerous trade and education missions to 
India. She was honored as the India Abroad Person of the Year 
2002 and the Asia-Pacific American Person of the Year 2008.
    I am pleased that Swati has been called by the President to 
serve again as U.S. Executive Director for the Asian 
Development Bank. I am confident that she will represent the 
United States well in that position as she has done very well 
in all of her other positions of public service.
    So I thank you, Mr. Chairman, for the courtesy you have 
given me to allow me to introduce Swati to this committee. And 
I want you to know that I fully support her nomination, and I 
hope the committee will see it fit to vote her out for Senate 
consideration. Thank you very much.
    Senator Gardner. Thank you, Senator Grassley. Thank you for 
joining the Foreign Relations Committee today and for that 
gracious introduction.
    Ms. Dandekar, if you would like to proceed with your 
testimony following that introduction, it would be great.

 STATEMENT OF SWATI A. DANDEKAR, OF IOWA, NOMINATED TO BE U.S. 
        EXECUTIVE DIRECTOR OF THE ASIAN DEVELOPMENT BANK

    Ms. Dandekar. Thank you, Senator Grassley, for your kind 
comments. I am really honored to say that we are family 
friends. Thank you. They are a part of my American family in 
Iowa.
    Senator Cardin. Let me also thank Senator Grassley for 
being here. He has incredible responsibilities in the United 
States Senate and is one of our great Members. And his 
introduction here means a great deal, and thank you very much 
for taking the time.
    Ms. Dandekar. Thank you.
    Chairman Gardner, Ranking Member Cardin, and distinguished 
members of the committee, thank you for the opportunity to 
appear before you today. I am honored to have been nominated by 
President Obama to be the next United States Executive Director 
with the rank of Ambassador to the Asian Development Bank.
    I came to the United States as an immigrant in 1973 when I 
married my husband of 43 years, Arvind Dandekar, who is here 
today. Arvind is President of Fastek International, a software 
development company. Arvind has always been supportive of my 
public service. We have two sons. Our older son Ajai and his 
wife Allison live in Seattle, Washington. Both Ajai and Allison 
are medical doctors. They have two sons: Evan, 9 years old; and 
William, 5 years. Our younger son, Govind and his wife Shaneeda 
live in Vancouver, Canada. Govind is an economist and computer 
scientist, and Shaneeda is a lawyer. They have two daughters: 
Ayanna, 2 years; and Iyla, 1 month. Our sons and their families 
were not able to be here today.
    During my 9 years in the Iowa House and Senate, from 2003 
until 2011, I had the chance to work at the State level. 
Additionally, during my 2 years as Commissioner of Iowa 
Utilities Board, I gained national-level experience. I am 
excited by the potential opportunity to work internationally as 
the U.S. Executive Director of the Asian Development Bank. As a 
legislator, I always worked with both sides of the aisle to 
develop consensus positions that were acceptable to all 
interested parties. Senator Joni Ernst was my colleague in the 
Iowa Senate and we became friends.
    I served as the Economic Development Budget chair in the 
Iowa House and Commerce Committee chair in the Iowa Senate. I 
have gained insight into State finances and budgets in these 
assignments.
    I also have extensive experience serving on a variety of 
boards in Iowa, such as Linn-Mar School Board, Vision Iowa 
Board, Iowa Values Fund, Iowa Power Fund, and Iowa Utilities 
Board. These experiences have provided me with a firsthand look 
at the transformative power of appropriate use of development 
funds.
    My extensive background in managing projects and 
cultivating partnerships will help me to carry out the 
responsibilities of the U.S. Executive Director at ADB, which 
is dedicated to reducing poverty in the Asia-Pacific region 
through sustainable and inclusive economic growth, investments 
in human capital, and good governance. If confirmed, my first 
priority will be to advance U.S. policy interests at the ADB.
    Additionally, I will work to ensure that the U.S. Commerce 
Department and other entities that publicize opportunities for 
U.S. businesses to compete for business overseas include 
information on how to compete for contracts from the ADB; 
strengthen outreach and engagement with NGO's, the 
nongovernmental organizations, communities and citizens to 
establish direct feedback channels for information on 
implementation status of ADB projects; modernize the ADB 
communications, such as the bank's website, to increase 
transparency and enhance marketability of the ADB; encourage 
ADB's efforts to create opportunities for women and girls 
across Asia for its own female staff; maintain communications 
with Congress; and advocate for ADB's continued application of 
high social, environmental, and fiduciary standards, including 
promoting their adoption by new multilateral institutions in 
Asia.
    My upbringing in India provides me with an excellent 
understanding of the Asian culture. In addition to English and 
Hindi, I am fluent in Gujarati and Marathi. I also have working 
knowledge in Urdu, Punjabi, and Bengali languages. My language 
skills and cultural awareness will position me well to address 
challenges facing the ADB.
    If confirmed, I look forward to representing the United 
States at the ADB and ensuring that our country's priority 
initiatives are advanced. It is my distinct honor to appear 
before you, and I sincerely appreciate the opportunity to be 
here today. I look forward to answering any questions you have. 
Thank you.
    [The prepared statement of Ms. Dandekar follows:]


              Prepared Statement of Swati Arvind Dandekar

    Chairman Gardner, Ranking Member Cardin and distinguished members 
of the committee, thank you for the opportunity to appear before you 
today. I am honored to have been nominated by President Obama to be the 
next United States Executive Director with the rank of Ambassador to 
the Asian Development Bank.
    I came to the United States as an immigrant in 1973 when I married 
my husband of 43 years, Arvind Dandekar who is here today. Arvind is 
President of Fastek International, a software development company. 
Arvind has always been supportive of my public service. We have two 
sons. Our older son Ajai and his wife Allison live in Seattle, 
Washington. Both Ajai and Allison are medical doctors. They have two 
sons, Evan (9 years) and William (5 years). Our younger son Govind and 
his wife Shaneeda live in Vancouver, Canada. Govind is an economist and 
computer scientist, and Shaneeda is a lawyer. They have two daughters, 
Ayaana (2 years) and Iyla (1 month). Our sons and their families were 
not able to be here today.
    During my nine years in the Iowa House and Senate, from 2003 until 
2011, I had the chance to work at the state level. Additionally, during 
my two years as a Commissioner of the Iowa Utilities Board I gained 
national level experience. I am excited by the potential opportunity to 
work internationally as the U.S. Executive Director of the Asian 
Development Bank (ADB). As a legislator I always worked with both sides 
of the aisle to develop consensus positions that were acceptable to all 
interested parties. Senator Joni Ernst was my colleague in the Iowa 
Senate and we became friends. I served as the Economic Development 
Budget chair in the Iowa House and Commerce Committee chair in the Iowa 
Senate. I have gained insight in to state finances and budgets in these 
assignments. I also have extensive experience serving on a variety of 
boards in Iowa, such as the Linn-Mar School Board, Vision Iowa Board, 
Iowa Values Fund, Iowa Power Fund, and Iowa Utilities Board. These 
experiences have provided me with a firsthand look at the 
transformative power of appropriate use of development funds.
    My extensive background in managing projects and cultivating 
partnerships will help me to carry out the responsibilities of the U.S. 
Executive Director at the ADB, which is dedicated to reducing poverty 
in the Asia Pacific region through sustainable and inclusive economic 
growth, investments in human capital, and good governance. If 
confirmed, my first priority will be to advance U.S. policy interests 
at the ADB. Additionally, I will work to ensure that the U.S. Commerce 
Department and other entities that publicize opportunities for U.S. 
businesses to compete for business overseas include information on how 
to compete for contracts from the ADB; strengthen outreach to and 
engagement with Non-Governmental Organizations (NGO) communities and 
citizens to establish direct feedback channels for information on 
implementation status of ADB projects; modernize the ADB's 
communications, such as the Bank's website, to increase transparency 
and enhance marketability of the ADB; encourage ADB's efforts to create 
opportunities for women and girls across Asia and for its own female 
staff; maintain communication with Congress; and advocate for ADB's 
continued application of high social, environmental, and fiduciary 
standards, including promoting their adoption by new multilateral 
institutions in Asia.
    My upbringing in India provides me with an excellent understanding 
of the Asian culture. In addition to English and Hindi, I am fluent in 
Gujarati and Marathi. I also have working knowledge in Urdu, Punjabi 
and Bengali languages. My language skills and cultural awareness will 
position me well to address challenges facing the ADB and communicate 
how ADB is fueling positive economic development and stability 
throughout the region.
    I have led delegations to India as Iowa Legislator, as Iowa 
Utilities Commissioner and as President of the National Foundation of 
Women Legislators. After leading these delegations, I believe 
empowering women is the key to eradicating poverty and to achieving 
economic growth. If confirmed, I hope to work closely with NGOs and 
other international organizations on women's issues as it relates to 
development financing.
    If confirmed, I look forward to representing the United States at 
ADB and ensuring that our country's priority initiatives are advanced. 
It is my distinct honor to appear before you, and I sincerely 
appreciate the opportunity to be here today. I look forward to 
answering any questions you may have.
    Thank you.


    Senator Gardner. Thank you very much.
    As you can tell by the bells, we have started a vote. So 
Senator Cardin will be voting, coming back, and then I will be 
heading to the floor as well. We will do that a couple times 
most likely during the hearing.
    We will turn now to--thank you, Ms. Dandekar, for your 
testimony. We will turn now to Mr. Matthews, Matt Matthews, up 
for the rank of Ambassador during this hearing today. I look 
forward to your testimony. Thank you.

STATEMENT OF MATTHEW JOHN MATTHEWS, OF OREGON, NOMINATED TO BE 
    THE U.S. SENIOR OFFICIAL FOR THE ASIA-PACIFIC ECONOMIC 
                    COOPERATION, APEC, FORUM

    Mr. Matthews. Good morning, Mr. Chairman. I am happy to be 
here today with my wife Rachel. My two children, Daniel and 
Kristen, are grown and live and work in Portland, Oregon and 
Bethlehem, Pennsylvania, so they were unable to join me today. 
Too bad Senator Cardin is not here. I could tell him that my 
son graduated from the University of Maryland Dental School. 
[Laughter.]
    Mr. Matthews. Mr. Chairman and members of the committee, I 
am honored to appear before you today as the President's 
nominee to serve as the Senior Official for APEC with the rank 
of Ambassador. I appreciate the confidence that President Obama 
and Secretary Kerry have shown in me, and if confirmed, I look 
forward to working with you to advance U.S. economic interests 
through the Asia-Pacific Economic Cooperation Forum as we 
strive to foster a rules-based economic system in the Asia-
Pacific region that supports prosperity abroad and jobs here at 
home.
    APEC is the premier economic organization in the Asia-
Pacific region and a key venue for engaging the most 
economically dynamic region in the world. APEC's 21 members 
span both sides of the Pacific and account for over half the 
global economy. They purchase 62 percent of our goods exports 
and comprise a market of 2.7 billion consumers.
    Through APEC, the United States works with our partners to 
tackle a wide range of issues critical to long-term prosperity 
across the Pacific Rim. For over 25 years, APEC has steadily 
advanced a vision of growth and integration, within Asia and 
across the Pacific.
    The United States works within APEC to open markets in the 
Asia-Pacific region and connect them to U.S. exporters. APEC's 
focus includes eliminating barriers to trade and investment and 
creating better environments for our companies to do business 
overseas.
    APEC has played and will continue to play a central role in 
enabling agreements like the Trans-Pacific Partnership and 
those at the World Trade Organization by helping economies 
envision and prepare for a high-standard, rules-based economic 
system throughout the Asia-Pacific. Agreements like these can 
deepen America's economic ties to the region and build a more 
level economic playing field that will help Americans to 
compete successfully.
    The economies of the Asia-Pacific region have benefited 
greatly over the past half century from progressively freer and 
more open trade and investment. The vast majority of the 
region's citizens live better lives because of the region's 
economic integration, but disruptions in the financial markets, 
natural disasters in the region, rising inequality in many 
regional economies, and raising long-term potential growth are 
key challenges.
    From our point of view, APEC is a key part of the solution, 
and the United States and other APEC members recognize that 
just as important to ensuring meaningful prosperity is 
promoting economic growth that is sustainable and benefits all 
of our citizens.
    If confirmed, I will work with Congress, the business 
community, and my colleagues in the executive branch through 
APEC to expand and sustain economic growth at home and abroad 
and to promote new opportunities for our exporters overseas.
    If confirmed, I will build on my experience in the Asia-
Pacific to advance our economic interests. Most recently I 
served as the Foreign Policy Advisor to the Commander of the 
U.S. Pacific Command, Admiral Sam Locklear, but I have spent 
most of my 30-year career in the Foreign Service primarily 
handling trade and economic issues at our embassies and posts 
overseas. In particular, my time working on macroeconomic 
reform and financial market access issues during multiple tours 
in China and Taiwan and on bilateral FTAs in the region has 
provided me with a good foundation of knowledge of both the 
region and the issues that the United States is working to 
address through APEC.
    Mr. Chairman, it would be a great privilege to serve my 
country as the U.S. Senior Official to APEC with the rank of 
Ambassador. The Asia-Pacific region represents the future of 
the global economy, and we can play a key role in shaping and 
sustaining our vision for the region through APEC. I look 
forward to helping the United States work through APEC to 
promote growth and job creation in the Asia-Pacific for 
American businesses and citizens.
    Thank you for your consideration of my nomination. I look 
forward to your questions.
    [The prepared statement of Mr. Matthews follows:]


               Prepared Statement of Matthew J. Matthews

    Mr. Chairman, and members of the committee, I am honored to appear 
before you today as the President's nominee to serve as the U.S. Senior 
Official for APEC with the rank of Ambassador. I appreciate the 
confidence that President Obama and Secretary Kerry have shown in me 
and, if confirmed, I look forward to working with you to advance U.S. 
economic interests through the Asia-Pacific Economic Cooperation (APEC) 
forum as we strive to foster a rules-based economic system in the Asia-
Pacific region that supports prosperity abroad and here at home.
    I'm happy to be here with my wife, Rachel. My two children are 
grown and live and work in Portland, Oregon, and Bethlehem, 
Pennsylvania, so were unable to join us today.
    APEC is the premier economic organization in the Asia-Pacific 
region and a key venue for engaging the most economically dynamic 
region of the world. APEC's 21 members span both sides of the Pacific 
and account for over half of the global economy. They purchase 62% 
percent of our goods exports, and comprise a market of 2.7 billion 
potential consumers.
    Through APEC, the United States works with our partners to tackle a 
wide range of issues critical to long-term prosperity across the 
Pacific Rim. For over twentyfive years, APEC has steadily advanced a 
vision of growth and integration, within Asia and across the Pacific.
    The United States works within APEC to open markets in the Asia-
Pacific region and connect them to U.S. exporters. APEC's focus 
includes eliminating barriers to trade and investment and creating 
better environments for our companies to do business overseas.
    APEC has played--and will continue to play--a central role in 
enabling agreements like the Trans-Pacific Partnership (TPP) and those 
at the World Trade Organization (WTO) by helping economies envision and 
prepare for a high-standard, rules-based economic system throughout the 
Asia-Pacific region. Agreements like these can deepen America's 
economic ties to the region and build a more level economic playing 
field that will help Americans to compete successfully.
    The economies of the Asia-Pacific region have benefitted greatly 
over the past half-century from progressively freer and more open trade 
and investment. The vast majority of the region's citizens live better 
lives because of the region's economic integration, but disruptions in 
the financial markets, natural disasters in the region, rising 
inequality in many regional economies and raising long-term potential 
growth are key challenges.
    APEC is part of the solution, and the United States and other APEC 
members recognize that just as important to ensuring meaningful 
prosperity is promoting economic growth that is sustainable and 
benefits all our citizens.
    If confirmed, I will work with Congress, the business community, 
and my colleagues in the Executive Branch through APEC to expand and 
sustain economic growth at home and abroad, and to promote new 
opportunities for our exporters overseas.
    If confirmed, I will build upon my experience in the Asia-Pacific 
to advance our economic interests in this region. Most recently, I 
served as Foreign Policy Advisor to former U.S. Pacific Command 
Commander Admiral Sam Locklear in Honolulu, but I have spent most of my 
thirty-year career in the Foreign Service primarily handling trade and 
economic issues at our Embassies and Posts overseas. In particular, my 
time working on macroeconomic reform and financial market access issues 
during multiple tours each in China and Taiwan, and on bilateral Free 
Trade Agreements (FTAs) in both Australia and Malaysia, has provided me 
with a good foundation of knowledge of both the region and the issues 
that the United States is working to address through APEC.
    Mr. Chairman, it would be a great privilege to serve my country as 
the U.S. Senior Official for APEC with the rank of Ambassador. The 
Asia-Pacific region represents the future of the global economy, we can 
play a key role in shaping and sustaining the vision for the region 
through APEC. I look forward to helping the United States work through 
APEC to promote growth and job-creation in the AsiaPacific for American 
businesses and citizens.
    Thank you for considering my nomination. I look forward to your 
questions.

    Senator Gardner. Thank you, Mr. Matthews, for your 
testimony.
    Ms. Escobari is our nominee for Assistant Administrator to 
the United States Agency for International Development. Welcome 
and please proceed.

 STATEMENT OF MARCELA ESCOBARI, OF MASSACHUSETTS, NOMINATED TO 
 BE AN ASSISTANT ADMINISTRATOR OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Escobari. Chairman Gardner, thank you for considering 
my nomination and for the opportunity to testify before you 
today. It is an honor to be nominated by President Obama to 
serve as Assistant Administrator for the Bureau for Latin 
America and the Caribbean at USAID.
    I have had a chance to meet with people from USAID and 
those working in this community, and I have been impressed by 
their deep knowledge and commitment.
    My own passion for development comes from growing up in 
Bolivia, one of the poorest countries in the hemisphere, a 
daughter of two pediatricians who spent most of their life 
working in public hospitals. I mean, they brought home the joys 
of making a difference one child at a time, but also the 
frustrations of seeing children dying more from poverty than 
disease. I recall telling my parents that I wanted to become a 
doctor like them and them counseling me that I should, instead, 
focus on the more structural issues that keep people in poverty 
instead of its symptoms. At the time, I did not quite 
understand what they meant, and it, for sure, sounded less fun 
than being a doctor. But I know that my parents, who are 
watching from afar today, are proud to see me here trying to do 
just that.
    I want to thank them, my husband Beran, and our sons, Nico 
and Lucas, and our friends and family, whose unwavering support 
and love are the reason that I can sit before you today.
    Throughout my career, I have had a chance to see 
international development from different perspectives. As an 
investment banker working in Latin America, I saw the win-win 
opportunities of foreign direct investment and the transfer of 
knowledge across borders. As a consultant working in Africa and 
the Americas, I saw the importance of partnership across 
sectors, and most recently as Executive Director of the Center 
for International Development at Harvard, I got a chance to 
work on ideas of how to spur economic growth that can be more 
inclusive and bring evidence to decision-making. These 
experiences have taught me lessons that I hope to bring to this 
job if confirmed.
    First, I believe that there are no silver bullets. Solving 
poverty is probably among the most complex challenges of our 
time. Making progress requires a long list of ingredients, from 
access to quality schooling to jobs that provide sustenance and 
dignity, and things we cannot touch like a sense of safety and 
the rule of law. The list continues, but we have learned the 
difficult truth that a one-size-fits-all approach will just not 
work.
    Second, the answers to this complexity must be grounded in 
evidence. Effective policy requires a relentless, data-driven 
approach to learning.
    And third, I have learned the importance of partnership. I 
worked on a project in Rwanda to help reconstruct the economy 
after the genocide. It focused on moving the coffee sector from 
green, low-value coffee to one that could be sourced by 
Starbucks. Success depended on entrepreneurs willing to venture 
into export markets, on a government that could provide 
widespread training to farmers, and USAID providing a loan 
guarantee to establish the first washing station. This 
partnership resulted in tripling of incomes of the poorest 
farmers in Rwanda. And these outcomes would not have been 
possible without multiple actors working together on a unified 
strategy.
    Finally, I understand that economic growth alone is not 
enough. Development requires strong and transparent 
institutions that provide basic services and are accountable to 
its citizens.
    It is an important time for Latin America and the 
Caribbean. There are winds of change that are bringing hope to 
millions of people. Historic elections have taken place in 
Venezuela and Argentina, and judicial systems are holding the 
most powerful accountable in countries like Brazil and 
Guatemala. There is a peace accord on the table in Colombia 
that might bring an end to a brutal 50-year-old war. But it is 
also a time of fragility. Winds of change can quickly turn to 
destructive storms, and so we must continue to work skillfully 
with our partners in the region to ensure that these gains are 
sustained. Our mission is shared in every sense not just with 
the American people as an extension of their will and with the 
burden and privilege of their trust, but also with our 
neighbors.
    I was born in Bolivia, but circumstances gave me the 
incredible chance to become a citizen of this great country. I 
fell in love with a great man, but I was also drawn to the 
United States' core values, its belief in every individual's 
intrinsic dignity and our right to pursue our own happiness and 
prosperity in an environment where our freedoms are protected 
and rules apply equally to everyone. I believe that these 
values are a source of our Nation's strength, and they must be 
reflected in our foreign policy.
    If confirmed, it would be an honor to give back to a 
country that has given me so much and to advance these values 
as Assistant Administrator for the Bureau for Latin America and 
the Caribbean at USAID. Thank you.
    [The prepared statement of Ms. Escobari follows:]

               Prepared Statement of Marcela X. Escobari

    Chairman Gardner, Ranking Member Cardin and members of the 
committee, Thank you for considering my nomination and for the 
opportunity to testify before you today. It is an honor to be nominated 
by President Obama to serve as Assistant Administrator for the Bureau 
for Latin America and the Caribbean at the United States Agency for 
International Development (USAID). I am grateful for the trust and 
confidence placed in me by Administrator Smith and Secretary Kerry at 
this critical time for the region. I also want to recognize the 
outstanding work being done by Beth Hogan, who has been leading the 
Bureau as acting Assistant Administrator.
    I have had the opportunity to meet the dedicated staff of USAID, as 
well as those working for this committee, and I have been inspired by 
their knowledge and commitment. I have devoted my career to the 
practice of international development and I remain deeply optimistic 
about the role that U.S. policy and development assistance can play in 
improving lives for the poorest communities in Latin America and the 
Caribbean. If confirmed, I will work hard to make good on the Agency's 
mission to create prosperous, democratic, and resilient societies.
    My passion for development was sparked by growing up in Bolivia, 
one of the poorest countries in the region, as the daughter of two 
pediatricians who practiced in the country's ill-equipped public 
hospitals. They brought home the joys of making a difference one child 
at a time, but also the frustration of seeing children die more often 
from poverty than disease. As a teenager, I recall declaring my intent 
to follow in their footsteps and become a doctor, to which they looked 
at each other with mild concern. They counseled me to instead focus on 
the ``more structural forces'' that keep people in poverty. At the 
time, I had no idea what they meant; only that it sounded much less fun 
than being a doctor. I soon figured out that they were encouraging me 
to tackle the root causes--not simply the symptoms--of the deprivation 
endured by the children they helped on a daily basis. I know that my 
parents, who are watching today from afar, are proud to see me here 
hoping to do just that.
    I want to thank them, my husband Beran, our sons Nico and Lucas, 
and all of our friends and family, whose unwavering support and love 
are the reason I can sit before you today.
    Throughout my career, I've had the opportunity to observe and work 
on international development challenges from many different 
perspectives. An early memory--and one that impacted my career choice--
was volunteering in an orphanage while in high school. There, I 
remember caring for a two year old child who could barely sit up 
because the staff had no resources to provide the most basic human 
interactions to foster his development. I knew even then, that his 
suffering was and should be preventable.
    Years later, as an investment banker working in Latin America, I 
saw the win-win potential of foreign direct investment and the transfer 
of knowledge across borders. As a management consultant working on 
development projects in Africa and the Americas, I learned how 
structuring effective partnerships among the private sector, 
governments, and local institutions can help create economic 
opportunities. Most recently, as the executive director of an 
international development research center at Harvard University, I have 
overseen numerous research projects on how to spur economic growth that 
is inclusive, and build the capacity of governments to execute more 
effectively. Experiencing the practice of development from these 
different perspectives--some up close as a volunteer and some from afar 
in the private sector and academia--has taught me a number of lessons I 
plan to bring to this job, if confirmed.
    First, I believe that there are no silver bullets. Solving poverty 
is among the most complex challenges of our time. Making progress 
requires a long list of ingredients--ranging from access to quality 
education and healthcare to reliable roads and functional ports. It 
requires jobs that provide both sustenance and dignity, and a viable 
transport system that allows people to get to those jobs. We also know 
that overcoming poverty requires intangibles. It requires effective 
governance. People must feel a basic sense of safety in their 
neighborhoods, they must believe in a future for themselves and their 
children; they must have faith in the rule of law and an impartial 
justice system. The list of course continues.
    But here's what we also know: it is possible to prevail. History 
has shown us that progress is attainable. The economies of countries 
like the U.S. have grown twenty times in the last two hundred years, 
while others have remained stagnant for decades. By studying their 
experiences, we have learned a lot about what drives growth, and we 
have had to confront the difficult truth that a one-size-fits-all 
approach will not work. The varying histories, cultures, capacities, 
government structures and even geographic locations of countries means 
that the path to prosperity for El Salvador will be different from that 
of Haiti.
    Second, I believe that the answers to the complex challenge of 
development must be grounded in evidence. Effective policy requires a 
relentless, data-driven approach to learning--and learning fast. We 
must start from the humble position that there is a lot that we still 
don't know. New technologies have given us the ability to experiment, 
gather data, and harness new insights at an accelerated pace. If 
confirmed, I will build on ongoing USAID innovations and evaluations 
efforts to bring this data driven approach to bear on initiatives to 
deliver results.
    Third, I have experienced first-hand the transformative power of 
partnership for development. Growth requires a thriving private sector 
that creates opportunities for its citizens--and one works together 
with an accountable public sector and vibrant civil society. Early in 
my career I worked on a project in Rwanda to help reconstruct the 
economy after the genocide. The project helped to transform a coffee 
sector that produced mostly green, low-value coffee into a competitive 
global exporter of Arabica coffee beans that are of such high quality 
that they are now sourced for Starbucks. Success depended on many 
factors: on entrepreneurs willing to venture into new export markets, 
on a government that could provide widespread technical assistance to 
farmers, on USAID's ability to provide a loan guarantee that helped 
establish the first coffee washing station. This 10-year, cross-sector 
partnership resulted in tripling the incomes of some of Rwanda's 
poorest coffee farmers, helping them to send their children to school 
and envision a new future for them. These outcomes would not have been 
possible without multiple actors working together on a unified 
strategy.
    In the end, nations can only provide opportunities for their people 
if they have competitive firms that produce goods the world wants to 
buy. While leading the Latin American and Caribbean practice for an 
international consulting firm, I witnessed what happens when local 
producers became globally competitive. Whether in manufacturing, 
tourism or music, the challenge is harnessing the specific advantages 
of local industry and effectively connecting them to global markets. 
These linkages provide jobs for the unemployed, increase wages for the 
poor, and ultimately drive sustainable growth and development--impacts 
that go well beyond a nation's own borders. I very much support USAID's 
focus on leveraging the investments of the private sector, and I 
believe that it is in the best interest of the American people to help 
build resilient economies that are integrated into the global 
marketplace. This is particularly true in our neighboring economies in 
Latin America and the Caribbean.
    Finally, I understand that economic growth alone is not enough. 
Development requires strong and transparent institutions that provide 
basic services to people, ensure that rule of law and public safety are 
maintained, that universal rights are respected, and that governments 
are accountable to their citizens. If confirmed, I will work diligently 
to advance the U.S. government's long-standing commitment to promoting 
democracy, human rights and governance and supporting civil society to 
advocate for these conditions in Latin America and the Caribbean--from 
Cuba to Venezuela and beyond.
    It is an important time for Latin America and the Caribbean. There 
are winds of change that are bringing hope to millions of people. 
Historic elections have taken place in Venezuela and Argentina. 
Judicial systems are holding the most powerful accountable in countries 
like Brazil and Guatemala. There is a peace accord on the table in 
Colombia that may finally bring an end to a brutal 50 year old civil 
war.
    But it is also a time of fragility. Winds of change can quickly 
turn to destructive storms, and so we must continue to work skillfully 
with our partners in the region to ensure that these gains are 
sustained. In Venezuela, a humanitarian crisis is brewing amidst 
political turmoil. In Central America, we have seen the spillovers of 
escalating violence, stagnant growth and weak institutions. In Haiti, 
allegations of electoral fraud have brought the country to the brink of 
an institutional void. And while Colombia is on the verge of a 
milestone peace accord, the country has yet to move through the 
delicate process of disarming and reinserting former fighters into 
society. We need to combine hope with humility, and a hunger for 
progress with a clear-eyed recognition of what it takes to create 
sustainable progress in this complex world.
    The region now faces a new threat--the Zika virus. While there is 
much we still do not know about this disease, I am encouraged by the 
U.S Government's response and USAID's plan to focus its efforts on 
mitigating the outbreak through mosquito control strategies, 
communicating with the public about the virus and how to control it, 
supporting women and families in affected countries, and innovating to 
enhance the response and prevent future outbreaks.
    As we look for solutions and for ways to support the region's 
dreams of prosperity and stability, we must not only deploy our own 
capabilities but also the commitment, knowledge and resources of our 
partners throughout the region. The solution to some of Guatemala's 
malnutrition challenges may be found in techniques developed in 
Argentina's agricultural sector. The answer to the scarcity of 
employment opportunities in Haiti may be found in the economic zones 
next door in the Dominican Republic. Ideas to address Central America's 
insecurity may be found in our own cities or in other cities across 
Latin America. Our mission is a shared one in every sense, not just 
with the American people--as an extension of their will and with the 
burden and privilege of their trust--but also with our neighbors in the 
region.
    I was born in Bolivia, but circumstances gave me the incredible 
chance to become a citizen of this great country. I fell in love with a 
wonderful man, but I was also drawn to the United States' core values, 
its belief in every individual's intrinsic dignity, in our right to 
pursue our own happiness and prosperity in an environment where our 
freedoms are protected and the rules apply equally to everyone.
    I believe that these values are the source of our nation's strength 
and that they must be reflected in our foreign policy. It would be an 
honor to give back to a country that has given me so much and advance 
those values as Assistant Administrator for the Bureau for Latin 
America and the Caribbean at the United States Agency for International 
Development. Thank you again for considering my nomination and I look 
forward to answering your questions.


    Senator Cardin [presiding]. Well, once again, thank all 
five of you.
    As you have noticed, Senator Gardner and I have rotated 
because there is a vote on the floor of the United States 
Senate, and we wanted to keep this hearing going. And I 
apologize for walking out. I have cast my vote. Now he is going 
over to do his vote, and he will be returning shortly.
    But once again, thank you all for your service.
    Let me, if I might, ask questions, first starting with 
Micronesia and with the Marshall Islands. Both are very much 
subject to the direct impact of climate change. They see it. 
The Marshall Islands was very helpful to us in Paris, as you 
pointed out. Micronesia is a great friend with us in the United 
Nations, as you pointed out.
    In both of those countries, we have issues. The Marshall 
Islands is very important on maritime security issues, which is 
an area that is growing in tension in the region. We have 
certain commitments. The development assistance programs and 
the compact tails off over a number of years in both of these 
countries. The conditions for Micronesia complying with the 
compact has been difficult, denying them some infrastructure 
funds.
    So I would welcome both of your views as to how you see us 
building on our traditional relationships with these two 
partner countries as we deal with international global issues 
from maritime security to climate change, to other issues in 
the United Nations, but also how you see the compact emerging 
with the United States' assistance during your terms as 
Ambassadors. Ambassador Stewart, we will start with you.
    Ambassador Stewart.  Thank you, Senator.
    You have addressed a broad set of issues that will be the 
future work for myself, if confirmed in the Marshall Islands.
    I think, first of all, I would like to say that in 
addressing the compact and the future of the assistance, it 
would be my goal, if confirmed, to work with the Marshallese 
for the goal of a more sustainable economic development, in 
other words, to as much as possible, shift the resources into 
outcome-oriented programmatic developments that would allow the 
Marshalls to become ready to become self-sufficient as the 
grant assistance comes to an end in 2023.
    At the same time, the Marshalls are fortunate in having a 
fairly strong start on their trust fund, which will provide an 
alternate source of income after the grant assistance ends.
    In the area of climate change, as you have noted, Senator, 
they worked with us very well in Paris, and I imagine we will 
continue to be close partners in the international 
negotiations. In terms of their own challenges, in the compact 
assistance, we are now moving to include resilience and 
adaptation measures in all of the projects so that what gets 
built there is prepared for some of the effects of climate 
change. And also, we have continuing programs in disaster 
assistance and preparedness, better even to prepare for 
droughts and other severe weather elements.
    And finally, in maritime security, we already have ship 
rider agreements with the Marshall Islands, but I think we 
continue to work with them on how to best preserve, conserve 
maritime resources and, if necessary, defend those areas.
    Thank you, sir.
    Senator Cardin. Mr. Riley, your background in Peace Corps 
will serve you well here in Micronesia. You understand how 
important the economic development and infrastructure 
development is to the country's future. And yet, they have been 
very slow in moving forward on the conditions of the compact, 
which jeopardizes their ability to improve the infrastructure 
of their country, which is part of their economic future.
    How do you see your role in trying to expedite the growth, 
economic growth, infrastructure growth, in Micronesia and 
partnership with the United States?
    Mr. Riley. Mr. Chairman, there are a lot of similarities 
between the Marshall Islands and the Federated States of 
Micronesia.
    I think one key difference that you identified is the fact 
that the trust fund is not fully funded in Micronesia as it is 
in the Marshalls. And there is a lack of economic development 
in Micronesia. So I will be looking very closely at the 
situation, if confirmed, on the ground and see where we might 
encourage private sector development, which I think is a key 
area in Micronesia. There is very much a lack of private sector 
development in Micronesia at the present time.
    And I am considering looking to U.S. business as partners 
in that effort. I think there are opportunities in tourism, 
some niche tourism in particular. There are opportunities in 
small business, small franchises, Starbucks and so forth, and 
there is even a possibility of establishing call centers there. 
They occupy kind of a unique place in the globe between the 
Philippines and the U.S. and India, and that might be a 
possibility. So those are some things I am thinking about and 
will be considering when I arrive in Micronesia, if confirmed.
    Senator Cardin. Well, I appreciate that answer. The call 
center issue is going to get some of our attention because we 
think you should be talking to someone in this country when you 
call for help. [Laughter.]
    Senator Cardin. I understand what you are saying.
    Mr. Riley. These would be American call center companies.
    Senator Cardin. We will do the best we can there.
    Let me switch because this is a large panel and I want to 
give everybody an opportunity with Ms. Dandekar and Mr. 
Matthews. And both, I want to ask you questions related to 
China.
    Ms. Dandekar, China has established the Asian 
Infrastructure Investment Bank, and it raises questions as to 
how it impacts the finance institutions in Asia with U.S. 
participation limited in how China is proceeding today. I would 
welcome your thoughts as to how you see the role within the 
Asian Development Bank in dealing with the efforts by China to 
divert from the traditional development banks to one which it 
has more influence on.
    Ms. Dandekar. Thank you for your question, Senator.
    Yes, AIIB is a new bank. And what they have said, that they 
will work with multinational--the MDBs. That is what they have 
said. The requirement for infrastructure in Asia is so vast 
that AIIB, when they work with MDBs, it will be good for us--I 
mean for the Asian Development Bank.
    The reason is AIIB said that they will work with MDBs 
because that is how they are going to work to get the good 
governance. If confirmed, I will encourage ADB to co-finance 
with AIIB. The reason is that this way we can make sure that 
there is transparency and there is good governance with AIIB.
    Senator Cardin. I would just caution--look, I do not think 
any of us disagree that the more players in the field, it adds 
more flexibility for how to deal with economic development. So 
I do not think we per se are concerned about China's trying to 
develop a development bank, but I do question whether China 
always does what it says and whether their motives are always 
as pure as what we are trying to do in international 
development, particularly in our rebalance to Asia. So I think 
your answer I agree with. We want to engage, but I would just 
caution that they may, in some instances, be trying to 
undermine the more traditional development opportunities.
    Ms. Dandekar. Thank you, Senator, for your comment. And I 
agree that there is a concern, but I think when AIIB will work 
with MDBs, we will be able to make sure that they have high 
standards, good governance, good transparency. By working with 
them, we will raise their standards too. So I completely agree 
with you regarding the concerns. But when they work with MDBs, 
it will really help to make sure that they are doing what they 
say they will be doing.
    Senator Cardin. I appreciate that. When I get to Ms. 
Escobari, I am going to be focusing on the corruption issue and 
good governance issue, but it is going to affect every one of 
your portfolios. And you are going to be hearing from not only 
me but this committee as to how we are going to assist you in 
your work on developing good governance as a condition to 
programs that you want us to participate with in any other 
country in the world. So we are going to be insisting upon the 
good governance, anti-corruption issues.
    Mr. Matthews, the fact that China's economy has cooled down 
considerably--oil prices, of course, are different--how does 
that affect the work of APEC?
    Mr. Matthews. Thank you, Senator.
    I would say that it raises the general broad problem that 
we are in a period of mediocre economic growth. And in APEC, we 
are looking across the spectrum of how we can operate to 
improve our economic performance and find new sources of growth 
whether it is through the economic architecture in trade--and 
in APEC this year we are initiating work on services trade. It 
is a great start. It will take us some time. But by opening up 
services trade among our APEC members, we will be expanding the 
potential for growth.
    In structural reform, we look behind the border barriers 
growth. We are trying to remove red tape. We are trying to 
eliminate unnecessary bureaucratic processing to reduce costs 
for firms and to speed up their opportunities to take advantage 
of international trade.
    And the third area where we work in APEC to deal with this 
slower growth environment is improving human capital. You will 
see it in the work that we are doing particularly with regard 
to women. This year we are going to be launching work on STEM 
education for women trying to make sure we reduce the gap and 
get more women and girls involved in science and technological 
education to ensure that they are getting the skills necessary 
to actively work and participate in our economies and bring 
greater growth potential by just raising overall human capital 
development.
    I would say those three core areas are ways in which we can 
engage effectively to help improve the potential for growth of 
our APEC economies.
    Senator Cardin. Well, thank you for that.
    China, I think, presents opportunities for us. So I am not 
opposed to China's growth. I would rather see them also invest 
in the same areas you just talked about. Those of us who have 
visited China recognize that they have held back their own 
growth by how they have denied the full opportunities to their 
people. And I think some of the points that you are referring 
to will provide a more stable environment for APEC. So I 
appreciate that answer.
    Ms. Escobari, I want to get to one of my favorite subjects. 
I recently was in Central America. I strongly support the 
President's initiatives in Central America, but I do not think 
it is enough. The programs seem to be more geared towards the 
military security front or the police security front rather 
than dealing with developing safety in communities for the full 
potential of their population. And impunity issue is horrible.
    So tell me how you are going to make anti-corruption, good 
governance your top priority in the work that you are going to 
do and how you are going to keep us informed of the progress 
you are making and the obstacles that you confront in the State 
Department so that we can remove those obstacles.
    Ms. Escobari. Thank you, Senator, for the question.
    Indeed, Central America is a priority and it is a key 
moment for the U.S. Government to invest in that region. I 
mean, the immigration crisis and the instability, as you said. 
And I think part of it is about, you know, people leave their 
countries because of fear and hope, and part of it is bringing 
hope closer to home. But both stability and economic 
development, or our key parts of the alliance for progress in 
the region, are not enough without dealing with governance and 
creating good institutions.
    I think we are all optimistic on the role that CSIG has had 
in the region in combating impunity. This was a pretty small 
agency that had important effects through time. And I know that 
Honduras also wants to embrace a similar model that we are 
supporting.
    So I think that the three-pronged approach of you have got 
to create jobs, which is I think important and crucial and you 
can be successful by taking a more regional approach, dealing 
with the safety issues--and the safety issues are very 
different in every country. There is not a one-size-fits-all 
approach there--and working at the community level and 
understanding the root causes of each of the problems is key. 
But as you say, none of that is sustainable without a focus on 
strengthening these institutions, and I think that should be a 
priority. And I will maintain you are informed and seek your 
counsel.
    Senator Cardin. Thank you.
    I admire Administrator Shah, Administrator Smith's 
initiatives at USAID to find ways to leverage a relatively 
small amount of assistance to bring about significant change. 
And we have been successful in doing that. I go back, Mr. 
Chairman, to President Bush's initiative on PEPFAR and that as 
a consequential change globally on our fight against AIDS. We 
need similar creative thoughts in dealing with hunger. And we 
have an initiative that we are doing at USAID with that. We 
need a consequential effort to deal with the gang violence in 
Central America.
    But we also need to get a clear message out on anti-
corruption that it is going to be tough love. We are not going 
to provide funds that can fuel corrupt regimes. In Central 
America, we have democratic regimes, but they have a hard time 
dealing with the extortion that gangs do in order to carry out 
their illegal activities. So we need you laser-focused as to 
how U.S. policy can have a more effective way of reducing anti-
corruption strategies in the countries in which we are 
operating in. And I see that you fully support that. 
[Laughter.]
    Ms. Escobari. Yes, I do support that.
    First, I think those commitments are part of this agreement 
and new funds to the region, that local governments need to be 
committed to these issues and show progress in them. I also 
think that corruption is extremely corrosive for development. 
It creates a huge tax. And we combat it directly and we also 
combat--the absence of corruption is public services that work. 
And when we focus on making sure that a system, you know, a 
health system, works, we are making sure that we are combating 
corruption too.
    Senator Cardin. Thank you very much. I appreciate all of 
your service.
    Senator Gardner [presiding]. Thank you, Senator Cardin.
    And just a quick question to all of you. We have spent a 
lot of time on this committee talking about the rebalance, 
talking about the pivot, talking about our Asia rebalance. And 
we have talked about how it cannot just be a military rebalance 
with personnel and equipment, but it has to be a diplomatic, it 
has to be an economic, it has to be all of the above when it 
comes to making sure that we are providing leadership and 
showing opportunities for the rebalance to succeed.
    So I guess I will start with Ms. Dandekar in terms of what 
you see our success with the Asia rebalance, how we are 
proceeding with it, how successful we have been, and what we 
need to do to truly continue making the rebalance effective.
    Ms. Dandekar. Thank you, Senator.
    I think it is important for ADB to be part of rebalancing, 
making sure that we have good governance, especially when it 
comes to economic development and infrastructure, also have 
good communications with the region like you mentioned. And I 
did talk about those issues in my opening statement.
    One of the things I have found out, it is important for us 
to have good governance, meet with the NGO's, the 
nongovernmental organizations. They are the ones who are going 
to say that what we are doing at ADB is the right thing. It 
also gives us good PR for the public to know that we are 
working on infrastructure, we are working on economic 
development, we are working on education, and it is because of 
ADB's partnership those things are happening.
    Senator Gardner. Ambassador Stewart, on the issue of the 
rebalancing, where we are and how we can be successful, and 
where we have not lived up to what we should be doing.
    Ambassador Stewart.  Thank you, Senator.
    With my many years of serving in Southeast Asia and South 
Asia, a priority given to the Asia-Pacific is of great interest 
to me.
    I think in the particular area of the Marshall Islands, it 
demonstrates our relationship there, demonstrates three of the 
key themes of an emphasis and a rebalancing towards the Asia-
Pacific.
    We have first the very strong defense and mutual security 
relationship, the access that we have to facilities there, and 
our responsibilities for defense.
    But we have also the important factor of the economic 
development and how we will work together to pick up that area 
more to work on the theme of mutual prosperity for the Marshall 
Islands. And I would say that is a broader theme for the Asia-
Pacific in general. That is what we hope to achieve here.
    And then thirdly, the people-to-people relationship, which 
I think should be emphasized also and which, in the case of the 
Marshall Islands, we have free travel back and forth and we can 
promote that. But I think, again, that would be a theme that I 
would see throughout the Asia-Pacific.
    Thank you, sir.
    Senator Gardner. Thank you.
    Mr. Riley?
    Mr. Riley. Thank you, Mr. Chairman.
    As in all things, there are many similarities between the 
Marshall Islands and FSM. I would add that the FSM is 
geopolitically very important. It occupies a million square 
miles in the middle of the Pacific between us and China. And I 
think that PACOM is very much aware of its geopolitical 
importance and is active in a number of areas in FSM, as I 
think also in the Marshall Islands. The Coast Guard is also 
active there. There are a number of maritime initiatives there.
    And the defense provisions in the compact are kind of a 
ready-built rebalance, if you will, in that we have the full 
responsibility and authority for all defense matters there, as 
well as the right of strategic denial to any third party 
military. And I think these are very important provisions in 
the compact that are good for their defense and for ours.
    As far as the economics are concerned, that is something 
that is kind of built into the end of the compact in the FSM. 
We are going to have to do a lot to make sure that the economy 
is ready for 2023, and if confirmed, that will be one of my 
major priorities.
    Senator Gardner. Mr. Matthews?
    Mr. Matthews. Mr. Chairman, for the Asia rebalance, three 
core areas of course are, on the diplomatic side, sustaining 
and strengthening our traditional alliance relationships while 
building out partnerships with other key players for us like 
Singapore, New Zealand, and Vietnam I think has gone very well 
over the past few years.
    On the military force reposturing, as you know, PACOM has, 
I think, completed a very effective restructuring and they have 
been working assiduously to make sure they have the most 
efficient down-lay of their forces across the Pacific in a way 
that strengthens our security, and I think they have been 
successful in that.
    And the third element, of course, is on the economic side 
where I now have some responsibilities. And APEC has been 
working consistently--and we are redoubling our efforts to do 
so--to assure that we have that open, transparent, rules-based 
economic system that supports our market economies and that 
sustains new opportunities for our businesses. I would say that 
the Trans-Pacific Partnership agreement, which grew out of 
APEC--of course, it is a separate negotiated undertaking, but 
shares those same values--is a perfect expression of the goals 
that we seek to ensure are inculcated in the structure of the 
economic arrangements in the East Asia-Pacific. And if we can 
get it to ratification this year, that will be a permanent 
stamp of American leadership in the region.
    Senator Gardner. From a resource point of view, your 
experience as Deputy Assistant Secretary of State in the Bureau 
of East Asian and Pacific, are we redirecting resources to an 
adequate point for that bureau? Because I know it had been 
actually one of the lower resourced bureaus.
    Mr. Matthews. I think the East Asian and Pacific Bureau 
would always appreciate more resources. [Laughter.]
    Mr. Matthews. And I could put that vote in for Assistant 
Secretary Dani Russel. But I do believe that we are making best 
efforts with the resources that we have got to do all that we 
can to pursue those goals, and I think we are doing them fairly 
effectively.
    Additional resources for development projects in the 
Pacific would be appreciated. I would say that there are a 
number areas where if we have adequate ESF funding, there are 
significant things we can accomplish in helping develop the 
capabilities of these economies and making sure that they are 
active and effective partakers in an open market economy.
    Senator Gardner. Ms. Escobari, would you like to address 
the question on the issue of rebalance?
    Ms. Escobari. Well, my area of expertise is around Latin 
America.
    Senator Gardner. I understand. I did not expect you to 
answer but I wanted to give you the chance if you wanted to add 
something to it.
    Ms. Dandekar, the ADB with the AIIB--is there anything that 
ADB should be doing, any policies that it should be pursuing or 
perhaps the Senate needs to be addressing when it comes to the 
experience of the AIIB to make sure that we are competitive, 
that we are providing leadership and not taken off the scene?
    Ms. Dandekar. Thank you, Senator.
    I have talked about a few things with Senator Cardin before 
you came.
    AIIB is a new bank. As you know, there is so much need, the 
vast need for infrastructure in Asia. And at this moment, AIIB 
has said that I am aware of that they will work with MDBs. And 
the Asian Development Bank will be one of them.
    And one of the reasons we should co-finance with them 
because I think that we can say and MDBs can say that we have 
to have higher standards, good governance, and transparency.
    And going back to my opening statement, I will work with 
Congress and with Treasury especially to take input from you if 
you have any concerns regarding how we should handle it and 
what should we do. I will keep the communications open, if 
confirmed as an Executive Director of the Asian Development 
Bank. I would really appreciate that.
    Senator Gardner. Very good. Well, thank you.
    And I want to thank all of the witnesses for appearing 
today. Thank you to Senator Cardin for joining us. Thank you 
for your testimony, your families, travel. Welcome again to the 
committee and thank you for being here.
    For the information of members, the record will remain open 
until the close of business next Monday, February 15th, 2016, 
including for members to submit questions for the record.
    We ask the witnesses to respond as promptly as possible to 
those questions, and your responses will, of course, be made a 
part of the record.
    With the thanks of the committee, this hearing is now 
adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


            Statement in Support of Ms. Marcela Escobari's 
           Nomination, Submitted by Senator Edward J. Markey

    It is a pleasure to support the nomination of Marcela Escobari, of 
Massachusetts, to be an Assistant Administrator of the United States 
Agency for International Development.
    If confirmed, Ms. Escobari will bring years of experience and 
knowledge to the job of Assistant Administrator. As Executive Director 
of Harvard University's Center for International Development, she 
focused on developing and disseminating breakthrough strategies to 
create prosperity in developing countries. Over her tenure at Harvard, 
the Center tripled in size, with a diversified set of supporters in the 
public, philanthropic and private realms.
    Her over two decades of experience in economic development include 
serving on the Executive Committee of the OTF Group, a strategy 
consulting firm that advised private and public sector leaders on how 
to improve export competitiveness. There, she built partnerships 
between country governments and private enterprise to increase the 
competitiveness of sectors with strong potential for economic 
expansion.
    Ms. Escobari has a particular interest on how information and 
communication technology affects economic development which is, I 
think, the area in which we should focus our efforts, as that is the 
approach that will spur entrepreneurship and innovation. Ms. Escobari 
grew up in Bolivia and worked with indigenous communities there for the 
World Bank.
    I can't think of more relevant experience, background and interests 
than those of Ms. Escobari to lead the Western Hemisphere Bureau at 
USAID. I look forward to a speedy confirmation process for her and all 
her fellow nominees.

                               __________

Responses of Swati A. Dandekar, Nominated to be U.S. Executive Director 
    of the Asian Development Bank, to Questions from Members of the 
                               Committee

                director-designate dandekar's responses 
                    to questions from senator cardin
Regional Economic Issues
          We've seen in recent months how China's economic deceleration 
        and increased global economic uncertainty has led to negative 
        spillovers for countries that for decades have been relying on 
        China as a source of demand for commodities that the region 
        provides.

    Question. Historically, what have been the key drivers of economic 
growth for ADB borrowing countries and how has the slowdown in China 
and the region harmed those drivers? In light of the changing growth 
picture in the region, what policy reforms are the most pressing for 
the ADB? Is the ADB adequately equipped to address the changing needs 
of the region?

    Answer. ADB borrowing countries extend from the Caucasus and 
Central Asia to the Pacific Islands, so the drivers of growth are 
extremely diverse. However, China's economic expansion has been a 
significant engine for export-led growth in many ADB borrower 
countries. In South Asia, China is a key importer of the region's 
agricultural commodities and lower value-added goods such as fabrics 
and garments. China's slowdown not only reduces demand for those 
exports, but also has created excess industrial capacity that may stunt 
efforts in South Asia, and in India in particular, to boost labor-
intensive manufacturing. Trade between China and Central Asian 
economies has also increased sharply over the last decade, especially 
among energy-exporting economies like Azerbaijan, Kazakhstan, and 
Turkmenistan, where exports to China surpassed 10 percent of total 
exports in 2014. A faster-than-expected slowdown in China would affect 
global demand and reduce prices in energy and commodity markets, 
further hindering growth in these economies that are already slowing.
    China's slowdown and weak external demand from other key export 
markets is underscoring the need for many of these borrowers to 
recalibrate their growth models to bolster domestic demand and develop 
new engines of growth in areas such as services. Continued investment 
in infrastructure and human capital along with other structural reforms 
are also crucial to enhancing their competitiveness. Additionally, 
China has become the world's largest source of tourists, and a 
precipitous slowdown in Chinese growth and a weaker Chinese currency 
could curtail Chinese tourism. Finally, China is also the second-
largest source of foreign direct investment (FDI) globally (after the 
United States), and a faster-than-anticipated slowdown in Chinese 
growth could cause some of that FDI to dry up.
    The ADB is well-positioned to support its borrowers as they 
confront this slowdown. ADB's emphasis on infrastructure and regional 
integration can improve competitiveness in non-traditional sectors and 
open up new export markets for developing Asian economies. The ADB is 
supporting investments in human capital, including increased attention 
to tertiary education and vocational training. The ADB's policy advice 
and technical assistance can also support reforms to improve business 
climates to spur new private investment and help governments do more to 
mobilize domestic resources. ADB's emphasis on inclusion, including 
promoting equality for women and girls, increases opportunities for a 
greater number of people to benefit from those sources of growth.
    The ADB's merger of its ordinary capital and concessional lending 
resources, which will significantly expand lending capacity to all ADB 
borrowers, is an important step for positioning ADB to meet the 
region's needs. The next steps are to ensure that ADB enhances its 
internal capacity to manage this additional lending as effectively as 
possible, including devoting more resources to anti-corruption and 
integrity due diligence. The ADB should also continue strengthening its 
framework for monitoring and evaluation and incorporating lessons 
learned on what parts of its assistance are most effective and which 
are not, which will allow ADB to better support inclusive growth and 
poverty reduction going forward.
Anti-Corruption
          In your comments about the AIIB, you stated that by working 
        with them the ADB could bring higher accountability standard to 
        their operations. In that regard, I am particularly interested 
        in the ADB's Office of Anticorruption.

    Question. First, I am concerned that it may not be as effective as 
it could be in dealing with an expanding portfolio. Please provide your 
view on the effectiveness of the current Office of Anticorruption, and 
what you would do to improve it. Second, please explain the authorities 
the Office would have in any co-financing project with the AIIB. What 
is the role of the Office in existing co-financing projects?

    Answer. ADB's Office of Anticorruption and Integrity (OAI) is only 
one of several units devoted to ensuring accountability at ADB 
(including most prominently the ADB's Accountability Mechanism, for 
which the United States has been a strong and key proponent). OAI's 
mandate is underpinned by ADB's zero tolerance for corruption, and its 
fundamental role is to ensure that ADB builds and maintains a culture 
of integrity among the institution's staff, fairly and transparently 
reviews procurement processes, and provides advice on integrity due 
diligence. If confirmed, I will aim to set the highest example by my 
own conduct. There are reforms that could strengthen OAI, such as 
updating the institution's code of conduct and implementing stronger 
provisions for disciplinary action.
    Beyond setting a good example and updating ADB's codes, OAI needs 
resources to perform the expanding set of key accountability tasks that 
it is charged with carrying out. Due diligence and investigative 
requests will increase as ADB, with more resources after the merger of 
its lending balance sheets, strives to expand its non-sovereign 
portfolio and co-financing in accordance with its current strategy. 
Additional staffing will be needed to ensure that OAI can complete its 
investigations in a timely fashion. Finally, OAI is one of the units at 
ADB charged with the important mandate of ensuring a respectful 
workplace for all. To consolidate the good work OAI has achieved to 
date and to bring about necessary improvements, major shareholders like 
the United States will need to lead by impressing upon ADB's Management 
the importance of fully funding and staffing OAI.
    OAI's role in projects co-financed with other institutions is the 
same no matter which institution is involved, but this role depends on 
the type of co-financing arrangement. For joint co-financing, ADB 
generally administers the funds and the project, and ADB's policies and 
procedures will always apply, including ADB's Anticorruption Policy. In 
these cases, OAI operates exactly as it would if the project were 
solely financed by ADB. In some instances, a co-financier will request 
application of its own anticorruption policy in addition to ADB's 
policy, usually to add its own bidder debarment list alongside ADB's. 
In those cases, if an OAI review determines that the co-financier's 
policies and procedures are fundamentally consistent with ADB's, OAI 
recommends that the Board approve the recognition of the additional 
sanction list. For parallel co-financed projects, each co-financier 
independently administers its own project in accordance with its 
respective policies and procedures. My understanding is that under the 
draft ADB-AIIB co-financing agreement, ADB would administer the co-
financed funds and thus the full ADB OAI review for joint co-financing 
would apply.
U.S. Arrears to ADB
          In my opinion, the U.S. should always lead by example and 
        fulfill its commitments to all the international organizations 
        to which it belongs. U.S. arrears to the ADB exceed $300 
        million.

    Question. What impact, if any, do these arrears have for U.S. 
participation in the ADB?

    Answer. I fully share the view that the United States should lead 
by example and fulfill its commitments to all international 
organizations in which it is a member, including the ADB. I appreciate 
that the FY 2016 appropriations clear our unmet commitments and 
complete our payments for the ADB's general capital increase, 
preventing us from forfeiting shares and ensuring that the United 
States remains the joint largest shareholder with Japan. However, the 
$297 million in unmet commitments that we still have to the Asian 
Development Fund (AsDF) undermine U.S. leadership and influence at the 
ADB and directly affect the AsDF's financial capacity for supporting 
the poorest countries in Asia. U.S. unmet commitments to the AsDF 
reduce our ability to influence policy priorities for both the AsDF and 
the ADB as a whole during AsDF replenishment discussions, including 
those currently taking place. Other donors and ADB Management are less 
willing to support our policy proposals if they do not believe that we 
will back our ideas with full funding of our commitments.
    Beyond the $297 million that the United States has not been able to 
contribute, our actions also impact other donors, who hold back some of 
their contributions until the United States is able to meet its 
commitments. My understanding is that other donors have required that 
AsDF withhold $138 million of their contributions due to U.S. unmet 
commitments. This financing is critical for supporting countries like 
Afghanistan, Nepal, and the small island countries of the Pacific (such 
as Micronesia and the Marshall Islands), even with the expansion of the 
ADB's and AsDF's lending capacity that will result from the merger of 
the ADB's ordinary capital and AsDF lending resources.

                               __________

    Responses of Matthew John Matthews, Nominated to be U.S. Senior 
  Official for the Asia-Pacific Economic Cooperation (APEC) Forum, to 
                Questions from Members of the Committee

                     nominee matthews's responses 
                    to questions from senator cardin
Top Priorities
          Mr. Matthews, you would clearly bring a lot of experience and 
        perspective to APEC. At the same time, things are changing in 
        the Asia-Pacific region--on the economic front China's shifting 
        economic policy is challenging existing institutions and 
        relationships.

    Question. What do you see as the most important issues facing APEC 
today?

    Answer. Global economic growth continues to face major challenges 
and growth in the Asia-Pacific region remains moderate and uneven. APEC 
economies need to work together to ensure that the region's 
historically robust growth can continue. The rise of economic 
integration in the Asia-Pacific region requires closer coordination and 
cooperation on issues that include trade policy, customs processing, 
and rules making by regulators.

    Question. Is APEC prepared to meet those challenges?

    Answer. APEC is an important part of how we meet these challenges. 
Its collaborative, non-binding nature allows economies greater freedom 
to discuss and engage with ideas than would otherwise be possible. The 
organization is also addressing new drivers of growth, such as services 
and digital trade.
APEC and U.S. Foreign Policy
          The Asia-Pacific region is presenting us with some of the 
        most difficult security and diplomatic challenges today.

    Question. What do you see as the proper roles of APEC and the East 
Asia Summit (EAS) in U.S. foreign policy? What are the implications of 
U.S. membership in the EAS for its engagement with APEC?

    Answer. EAS and APEC are complementary. APEC provides an 
opportunity to advance trade and investment issues in the Asia-Pacific 
region, which includes important trading partners in the Western 
Hemisphere. The EAS provides a forum to address political and security 
issues in the region.

    Question. Some have suggested that APEC consider downgrading its 
annual meeting to a ministerial meeting rather than a leaders' meeting 
with heads of state. How do you assess such suggestions?

    Answer. The first APEC Leaders-level meeting took place on Blake 
Island in Seattle, Washington during the United States' first hosting 
of APEC in 1993, four years after its founding. Since then, Leaders 
have met annually to address pressing challenges and solidify their 
common vision for how to achieve regional economic integration and 
inclusive growth. As the premier economic forum in the region, Leaders-
level participation demonstrates the importance we place on the Asia-
Pacific economy, and our active participation in it as a Pacific power 
is critical to balancing interests from across the region and shaping 
its agenda.
APEC Expansion
          With the rise of many dynamic economies in the region, APEC's 
        membership may no longer reflect the true balance of influence 
        and interests there.

    Question. Do you believe APEC should be expanded to include India?

    Answer. We welcome India's interest in joining APEC. India has 
substantial and growing economic linkages with the United States and 
other APEC member economies. Interagency discussions are currently 
underway regarding India's interest in membership and to better 
understand how APEC fits into India's domestic economic reform agenda.

    Question. Are there other nations in the Asia-Pacific region that 
might be potential members for the group?

    Answer. The following economies have expressed interest in APEC 
membership: Cambodia, Colombia, Costa Rica, Ecuador, Guatemala, 
Honduras, India, Macau (China), Mongolia, Pakistan, Panama, and Sri 
Lanka. There is currently no consensus among APEC members on the 
parameters of membership expansion or on which of the roughly dozen 
candidates, including India as well as other countries in the Americas 
and South and Southeast Asia, should be considered.

    Question. What are the pros and cons of enlarging APEC?

    Answer. New members could extend APEC's reach and influence and 
could be an important mechanism to accelerate reform in the economies 
of new members. However, admitting new members could make the 
organization unwieldy and slow momentum toward regional integration. 
APEC serves as an effective forum to advance free and open trade and 
investment, and any expansion would have to be evaluated based on its 
impact on the organization.

                               __________

      Responses of Marcela Escobari, Nominated to be an Assistant 
 Administrator of the USAID, to Questions from Members of the Committee

        assistant administrator-designate escobari's responses 
                    to questions from senator cardin
Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career in development, my guiding principle 
has been to improve the lives and dignity of the people living in the 
countries I have sought to help. This has meant promoting inclusive 
growth strategies that help people access capital and networks, as well 
as supporting the development of strong institutions and governance to 
ensure that the benefits of development are widely shared and 
individual rights are respected.
    In my role as Executive Director at the Center for International 
Development (CID) at Harvard University, I have sought to promote a 
comprehensive approach to development that includes improving 
governance, and promoting human rights and democratic principles. The 
Center is focused principally on exposing students of public policy to 
practitioners in the field and managing research initiatives. Examples 
of actions that I have pushed forward in this role include facilitating 
a fellowship at Harvard's Carr Center for Human Rights for a Venezuelan 
non-governmental organization (NGO) representing political prisoners 
and advocating for judicial accountability. This fellowship will enable 
a research project to analyze how to increase the cost to authoritarian 
governments that bypass judicial systems. When completed, this work 
will be made widely available. I also facilitated the engagement of the 
Centre for Applied Nonviolent Action and Strategies (CANVAS) to teach a 
course at Harvard on strategies to combat authoritarian regimes, 
helping educate public policy students from around the world on 
promoting human rights and democracy most effectively.
    I have also worked on e-government efforts, including writing a 
paper on the topic to show the value of efficiency and transparency in 
government procurement, services and regulations. Lastly, many of CID's 
programs address topics that improve the capability and accountability 
of government. In particular, one of our projects in Venezuela seeks to 
help navigate the transition of the country to a more democratic and 
prosperous society.

    Question. What are the most pressing human rights issues in Latin 
America and the Caribbean? What are the most important steps you expect 
to take--if confirmed--to promote human rights and democracy in Latin 
America and the Caribbean? What do you hope to accomplish through these 
actions?

    Answer. The human rights landscape in Latin America and the 
Caribbean (LAC) has improved over the past several decades, but serious 
issues remain. In many countries, democratically elected populist 
leaders inhibit political participation and curb checks and balances by 
restricting or co-opting the power of legislative and judicial branches 
of government. Human rights defenders, labor activists, members of the 
media and other political activists remain at elevated risk of 
intimidation and violence.
    High levels of violence across Latin America and the Caribbean--
driven in part by high inequality and exacerbated by corruption, 
impunity, and lack of effective law enforcement--continue to threaten 
public safety and constrain efforts to spur economic growth. Central 
American migrants to the United States, who often leave their countries 
because of security concerns, are vulnerable to numerous human rights 
violations including human trafficking and threats to life during their 
journey. Dysfunctional justice and security sectors only worsen the 
situation. Women and girls, as well as LGBTI persons, are especially 
susceptible to gender-based violence.
    If confirmed, I will commit to employing a human rights-based 
approach to address these long-standing issues in LAC, from Cuba to 
Venezuela and beyond. I support USAID's continued work and consultation 
with government, civil society, and private sector partners to include 
all citizens in the benefits of development efforts. I was pleased to 
see increased resources for the region and for democracy and governance 
in the President's Fiscal Year (FY) 2017 request, and commit to 
leveraging these resources in support of independent civil society 
organizations that serve as a counterweight to the forces of 
repression, corruption, and disenfranchisement. Also, I will support 
USAID's work to reduce violence, particularly in Central America, 
through crime and violence prevention programs, justice sector reform, 
and government, social services, and civil society strengthening. I 
understand USAID is developing a new human rights program to improve 
national human rights protection systems that will work to protect 
vulnerable populations in the Northern Triangle. If confirmed as 
Assistant Administrator, I believe I can play an important role in 
sharpening these efforts and in leveraging our relationships in the 
region to support inclusive growth and protection of human rights. 
Through these actions, I hope to accelerate USAID's contribution to a 
safer, more inclusive and prosperous Latin America and the Caribbean.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Latin America and 
the Caribbean in advancing human rights, civil society and democracy in 
general?

    Answer. Having worked on these and other development issues for 
many years, I understand that donors alone cannot bring about these 
changes. Addressing human rights issues requires a commitment by 
governments in the region to respect the fundamental freedoms--
including freedom from violence--of their citizens. This includes 
passing and enforcing laws that protect citizens in each country as 
part of a comprehensive rule of law system--a challenge that has long 
plagued many countries in the region. Public awareness about human 
rights, including norms and responsibilities, as well as citizen 
engagement are also crucial to creating a culture of respect for human 
rights. Civil society organizations and the media play an important 
role in educating citizens about their rights, in monitoring the 
protection of those rights, and in calling for the enforcement of laws 
designed to protect citizens. However, in several of the countries in 
the region, many of these same groups face near constant threats, 
systemic persecution or intimidation. I understand that many of USAID's 
programs are designed to squarely address human rights challenges, and 
that the Agency is designing specific human rights protections programs 
for the Central America region. I look forward to advancing this work, 
if confirmed.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from Latin America and the Caribbean?

    Answer. Engaging in consultations with human rights, civil society, 
and non-governmental organizations is fundamental to USAID's work in 
Latin America and the Caribbean. I If confirmed, I will make this a 
priority. Indeed, I believe that doing so is critical to help inform 
program design, implementation, and sustainability for all of the 
Agency's programming, including in the areas of democracy, human rights 
and governance.

    Question. Will you engage with Latin American and Caribbean 
governments on matters of human rights, civil rights and governance as 
part of your mission?

    Answer. Active engagement with governments in the region on matters 
regarding human rights, civil rights and governance will be vital to 
addressing the issues previously mentioned. Engagement will also 
support all of USAID's programs, including those that seek to improve 
citizen security and strengthen democracy and governance, so that they 
foster more sustainable development in LAC. If confirmed, I will 
prioritize engagement with Latin American and Caribbean governments as 
a central part of my role and mission as Assistant Administrator.
Central America
          I am deeply concerned about the situation in Central 
        America--where youth face extreme levels of violence and where 
        weak public institutions struggle to uphold the rule of law and 
        address the corrupting influence of illicit trafficking.

    Question. In your opinion, what steps do we need to take to achieve 
consequential change in Central America? What investments will you make 
in programs that advance democratic governance, strengthen the rule of 
law, and combat corruption?

    Answer. Social development and economic growth in Central America 
have been stymied in recent years by a dramatic rise in crime and 
violence-particularly in the Northern Triangle countries of El 
Salvador, Guatemala and Honduras. This insecurity is rooted in deep-
seated issues of social and economic inequity, weak criminal justice 
institutions, the failure to expand economic opportunity for vast 
segments of the population, and increases in gang violence and 
transnational crime. As these long-standing challenges in Central 
America have worsened, we have seen the consequences manifest at our 
border, where thousands of unaccompanied children left their homes in 
Central America to make the dangerous journey to the United States.
    I believe that investing now in advancing democratic governance, 
strengthening the rule of law, countering gangs and combating 
corruption will have sustained long-term benefits for both the region 
and our own nation. These investments are also critical to enable 
USAID's other programs to yield benefits for the people of these 
countries. If confirmed, I will support implementation of the U.S. 
Strategy for Engagement in Central America, which directly addresses 
the root causes of migration by focusing on three interrelated 
objectives: prosperity, security and governance. By advancing these 
three objectives in tandem, the Strategy seeks to foster a secure, 
economically integrated Central America that provides opportunities to 
all its citizens, and is governed by more accountable, transparent and 
effective public institutions.
    If confirmed, I will also support investments in Central America 
that are evidence-based. It is my understanding that USAID is already 
seeing some tangible results of the Agency's crime prevention 
activities in El Salvador. Initial analysis from a rigorous impact 
evaluation points to a 66 percent drop in homicides in the 76 
communities where USAID targets its programming, which is in contrast 
to other communities where homicide rates have climbed sharply over the 
past year. If confirmed, I will support the Agency's efforts to have 
their investments to advance development, democracy and human rights 
principles grounded in evidence of what is working in Central America.
Colombia
          President Santos recently visited Washington to commemorate 
        15 years of close cooperation between the U.S. and Colombia. 
        Through Plan Colombia, our two countries paved the way for a 
        stronger and more democratic nation, and one that stands on the 
        brink of peace. During the visit, President Obama announced a 
        new framework for bilateral cooperation, which he called "Peace 
        Colombia" and has requested more than $450 million in support 
        of implementation of a potential peace agreement.

    Question. What is your vision for USAID's priorities in Colombia as 
the country moves forward in a direction of peace? What do you believe 
USAID's strategy should be in support of a post-conflict society in 
Colombia?

    Answer. USAID has maintained a long and deep presence in the most 
challenging and conflict-affected regions of Colombia, and this 
continued support will be necessary to maintain a sustained peace post-
accord. My understanding is that USAID's strategy moving forward will 
be to focus on post-conflict programming by expanding support for the 
reintegration of ex-combatants, stabilization plans, transitional 
justice and post-conflict readiness efforts. If confirmed, I will 
strongly support enhanced assistance to the Government of Colombia in 
implementing its own peace accord commitments and establishing a 
stronger state presence in conflict-affected areas of the country.

Human Rights and Anti-Corruption in the Hemisphere
          Over the past year, from Guatemala to Brazil to Venezuela, 
        Latin American civil society has spoken out more loudly than 
        ever against corruption and violations of human rights.

    Question. Given the vital importance of strengthening democratic 
institutions, promoting good governance, and strengthening civil 
society, what priority will you place on these issues and how can we 
best tailor our assistance programs to address these issues?

    Answer. Issues related to democratic governance are paramount to 
the development of safe, prosperous countries in Latin America and the 
Caribbean. If confirmed, I will prioritize these issues as fundamental 
components in all of the work USAID does in the region. Anti-corruption 
and transparency issues cannot be fully addressed with stand-alone 
governance programs. It is therefore critical that the principles of 
good governance, especially transparency and anti-corruption, are 
integrated into all development sectors in which the Agency works. 
USAID's health and education reform programs, for example, must include 
mechanisms to deter corruption and to support transparency of 
governance in their respective sectors.
    I also believe that human rights principles are foundational to a 
country's ability to achieve sustainable, inclusive economic growth. If 
confirmed, I will support the efforts of the region's civil society to 
monitor human rights and corruption, to educate and empower citizens on 
their rights, and to propose solutions to intractable problems.
Haiti
          Since Haiti's devastating earthquake in 2010, the U.S. 
        Congress has appropriated more than $4 billion in foreign 
        assistance. USAID has been at the forefront of our efforts, 
        with critical programs to strengthen Haiti's health sector, 
        food security, economic infrastructure, and the rule of law. 
        Repeated GAO studies have suggested that the U.S. has not 
        achieved the results that we have hoped for. And, with the 
        president stepping down last Sunday to make way for an interim 
        government, many analysts have observed that weak democratic 
        institutions are a hurdle to economic growth and stability.

    Question. What will your priorities be for USAID's programming in 
Haiti? Should more attention be paid to strengthening democratic 
institutions and promoting good governance?

    Answer. Haiti's political environment continues to be challenging 
and complex. As the poorest country in the region, it has suffered from 
political instability and low productivity for decades. The 2010 
earthquake exacerbated that reality. In order to have sustainable 
growth, greater political leadership and good governance are needed, 
but short-term economic pressures further drive instability and 
corruption. This chicken and egg dilemma is not reason to give up, but 
rather to take a hard look at what is working and what is not, apply 
lessons learned and speed the Agency's execution and implementation. 
Despite the challenges in Haiti, my understanding is that several of 
USAID's projects, specifically in the health and agriculture sectors, 
are bearing fruit and that the Agency has made considerable progress in 
addressing bottlenecks in the obligation of funds.
    To help Haiti achieve results that strengthen democratic 
institutions, it is my understanding that USAID focuses on key areas of 
capacity building for the Government of Haiti, which includes promoting 
political competition and consensus building, improving access to 
justice and legal assistance, and protecting human rights and 
vulnerable populations. The course of Haiti's future ultimately depends 
on Haitians themselves, but if confirmed, I will reinforce USAID's 
commitment to providing support to build Haiti's capacity to provide 
for its citizens.

                               __________
        assistant administrator-designate escobari's responses 
                    to questions from senator rubio

    Question. If confirmed, what will be your main priorities in Latin 
America and the Caribbean region?

    Answer. If confirmed, I will focus on promoting inclusive growth, 
citizen security, and good governance in a manner that benefits all 
citizens. To achieve these objectives, I will amplify and expand USAID 
programs that are demonstrating results, and work with Congress to 
institutionalize and build on successful programs in Latin America and 
the Caribbean (LAC). My current priorities include expanding the 
Agency's work on democracy, human rights, and governance in LAC, 
particularly in Central America, Venezuela, and Colombia. I will also 
work to enhance the Agency's impact in Haiti, promote universal human 
rights and democratic reforms in Cuba, and further the implementation 
of the U.S. Strategy for Engagement in Central America.
    While I will bring to this role a clear focus on results, I am a 
strong believer that no one has a monopoly on good ideas, and I welcome 
broad input on priorities, ways to evaluate program impact, and which 
programs are most effective in advancing the interests of the United 
States and the people of the region. I will use the management skills I 
have developed throughout my career to provide leadership, guidance, 
and tools that enable USAID's staff to deliver results in these 
priorities.

    Question. What countries are in need of the most USAID programming 
in that region?

    Answer. It is my understanding that USAID programming advances U.S. 
national interests of prosperity and security, and responds directly to 
U.S. policy priorities. Currently, these priorities include maintaining 
assistance to Central America, with a particular focus on the Northern 
Triangle, Colombia, Haiti, Cuba, and the Caribbean.
    In Venezuela, a humanitarian crisis is brewing amidst political 
turmoil. In Central America, we have seen the spillovers of escalating 
violence, stagnant growth and weak institutions. And while Colombia is 
on the edge of a milestone peace accord, the country has yet to move 
through the delicate process of reinserting the guerillas into the 
economy, disarmament, and strengthening civil society throughout the 
country. These countries will require attention and targeted 
programing. If confirmed, I look forward to working with USAID staff 
and the Congress on these priorities.

    Question. On Central America, what specific programs will USAID be 
implementing in that region as a result of the passage of FY 2016 
Omnibus?

    Answer. My understanding is that the fiscal year (FY) 2016 Omnibus 
provides greater resources than previous years to support the U.S. 
Strategy for Engagement in Central America. This increase in funding 
will allow USAID to expand successful crime and violence prevention 
programs. The increase also facilitates USAID's execution of new 
regional and bilateral approaches designed to target assistance to 
those most likely to engage in violence at home or in the community, so 
as to significantly reduce homicides and other types of violence. In 
addition, these funds will enable the Agency to initiate programs in 
the areas of prosperity and governance, which address the core drivers 
of migration from Central America. For instance, I understand that new 
programs will support trade and investment facilitation across Central 
America, small and medium business competitiveness in Honduras, and 
agricultural value chain strengthening in Guatemala. These new efforts 
aim to provide rural households with more opportunities to connect to 
viable markets, and to diversify and increase their incomes. FY 2016 
funding also enables USAID to support new civil society and governance 
programs designed to improve the effectiveness, transparency and 
accountability of public institutions in all three Northern Triangle 
countries. These programs will increase transparency and citizen 
participation in El Salvador, strengthen anti-corruption efforts and 
reforms in Honduras, and empower civil society to advocate more 
effectively in Guatemala.

    Question. In Haiti, it has been reported that projects have been 
delayed or have failed to meet their desired results. If confirmed, 
what would you do to achieve better results? Please be specific on the 
programs.

    Answer. My understanding is that the U.S. Government updated the 
2011 "Post-Earthquake U.S. Government Haiti Strategy: Toward Renewal 
and Economic Opportunity" in 2015, specifically to respond to delays in 
some areas and improve cost efficiency and sustainability. The updated 
strategy is now extended to FY 2018, and continues to guide the United 
States' overall approach to development assistance to Haiti. The U.S. 
Government is aligning its programs with the Government of Haiti's 
priorities and supporting specific activities where the Haitian 
government demonstrates political will and leadership necessary to 
address needed reforms.
    I believe in using evidence in policy making, and if confirmed, 
will support USAID to continue to monitor progress, scale up those 
interventions that are bearing fruit and terminate programs that are 
not working. For example, my understanding is that program activities 
that lack political will have ended, such as the reform of the state 
electric utility. With Congressional approval, USAID has reprogrammed 
funds to support programs that better address other key issues in the 
country. For example, USAID has shifted funds away from infrastructure 
and energy and is moving them into programs to improve the capacity of 
the Ministry of Health, address key human rights challenges such as 
child labor, to provide nutrition programs for vulnerable populations, 
and increase workforce development training with private enterprises in 
agribusiness, construction, and textile value chains. If confirmed, I 
will also work with the Agency to conduct routine analysis of each of 
the programs within the Haiti portfolio to determine appropriate 
actions and maintain a good understanding of the role of government 
capacity in the success of these projects.

    Question. In Colombia, what role will USAID play if a peace 
agreement between the Government of Colombia and the FARC is reached by 
March 2016?

    Answer. USAID strongly supports Colombia's expected implementation 
of a peace agreement. The United States-Colombia partnership will be 
critical to U.S. interests in a post-accord era. Key USAID program 
priorities will include political participation and transitional 
justice, reintegration and rehabilitation of ex-combatants, and 
promoting inclusive economic growth, especially in rural areas of 
Colombia. USAID's role will be to maintain its deep presence in the 
most challenging and conflict-affected regions of Colombia, as this 
continued support will be necessary to maintain a sustained peace led 
by the Government of Colombia. USAID's strategy will be to focus on 
post-conflict programming by expanding support for the reintegration of 
ex-combatants, stabilization plans and post-conflict readiness efforts. 
If confirmed, I will strongly support USAID assistance to the 
Government of Colombia in implementing its own peace accord commitments 
and establishing a stronger state presence in conflict-affected areas 
of the country.

    Question. What is the current status of USAID funding for human 
rights and democracy in Cuba?

    Answer. USAID's commitment to democracy in Cuba remains strong, and 
if confirmed, I will continue to make this a priority. For the past 20 
years, USAID has promoted democracy in Cuba by providing humanitarian 
assistance to political prisoners and their families, supporting local 
civil society actors and groups, and facilitating the free flow of 
information to, from and within the island. With FY 2015 resources, it 
is my understanding that USAID recently put out Requests for Proposals 
that will focus on new programming in humanitarian assistance for 
political prisoners and their families, and in human rights support for 
civil society groups. If confirmed, I look forward to working with 
Congress to continue USAID's efforts to advance human rights and 
democracy in Cuba.

    Question. What are the current and future USAID initiatives to 
support civil society and democratic governance initiatives in 
Venezuela?

    Answer. My understanding is that USAID has provided assistance to 
support open democratic processes in Venezuela since 2002. Over this 
time, the Venezuelan executive has increasingly undermined the autonomy 
of other branches of government and thereby limited citizen rights. 
Given the recent parliamentary election in December 2015, USAID remains 
hopeful and committed to supporting initiatives in Venezuela, 
especially in the areas of democracy, human rights and civil society 
strengthening. If confirmed, and as the political landscape in 
Venezuela develops, I look forward to exploring opportunities for 
further USAID support for governance as well as broad economic 
stability. I believe that greater levels of peace, stability and rule-
of-law in Venezuela are in the best interests of Venezuelans, the 
American people and the neighboring community in Latin America.

                              __________


                              NOMINATIONS

                              ----------                              


                        THURSDAY, MARCH 10, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Christine Ann Elder, of Kentucky, nominated to be Ambassador to 
        the Republic of Liberia
R. David Harden, of Maryland, nominated to be an Assistant 
        Administrator of the United States Agency for 
        International Development
Elizabeth Holzhall Richard, of Virginia, nominated to be 
        Ambassador to the Lebanese Republic
Stephen Michael Schwartz, of Maryland, nominated to be 
        Ambassador to the Federal Republic of Somalia
Kelly Keiderling-Franz, of Virginia, nominated to be Ambassador 
        to the Oriental Republic of Uruguay
Mark Sobel, of Virginia, nominated to be United States 
        Executive Director of the International Monetary Fund 
        for a Term of Two Years
Adam H. Sterling, nominated to be Ambassador to the Slovac 
        Republic
                              ----------                              

    The committee met, pursuant to notice, at 10:55 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Perdue, Isakson, 
Barrasso, Cardin, Menendez, Shaheen, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today, the committee will consider seven nominations.
    First on our panel, we have Ms. Christine Elder, a career 
member of the Senior Foreign Service, class of counselor, 
nominated to be Ambassador to Liberia. Ms. Elder is currently 
director of the Office of Southern African Affairs in the 
Bureau of African Affairs at the Department of State, a 
position she has held since 2013. Previously, Ms. Elder served 
as Deputy Chief of Mission at the U.S. Embassy in Mozambique 
from 2010 to 2013, and as a strategic planning officer in the 
Bureau of International Programs from 2007 to 2010.
    Thank you so much for your service.
    We have Mr. David Harden. He is nominee for Assistant 
Administrator for Democracy, Conflict, and Humanitarian 
Assistance for USAID. He is a career member of the Foreign 
Service, class of minister counselor, and currently serves as 
mission director at USAID Mission in the West Bank and Gaza, a 
position he has held since 2013. Prior to this, he was deputy 
mission director at USAID Mission in Iraq from 2012 to 2013, 
and senior adviser to the Special Envoy for Middle East Peace 
from 2009 to 2012. Mr. Harden also served as senior development 
adviser in Libya in 2011.
    Thank you so much.
    Next we have Ms. Elizabeth Richard nominated to be 
Ambassador to Lebanon. Ms. Richard, a career member of the 
Foreign Service, class of minister counselor, is the Deputy 
Assistant Secretary in the Bureau of Near Eastern Affairs at 
the Department of State, a position she has held since 2013. 
Previously, Ms. Richard served as Deputy Chief of Mission at 
the U.S. Embassy in Yemen from 2010 to 2013, border coordinator 
at the U.S. Embassy in Pakistan from 2008 to 2010, and as 
director of counternarcotics law enforcement and rule of law 
programs at the U.S. Embassy in Afghanistan from 2006 to 2007.
    Thank you so much.
    Lastly, we have Mr. Stephen Schwartz, a career member of 
the Foreign Service, class of counselor. He currently serves as 
director of the Office of Australia, New Zealand, and Pacific 
Island Affairs at the Department of State, a position he has 
held since August 2015. Previously, Mr. Schwartz served as 
director of the Office of Western African Affairs from 2013 to 
2015, deputy chief of mission at U.S. Embassy in Zambia from 
2010 to 2013, and deputy director of the Office of Australia, 
New Zealand, Pacific Islands from 2008 to 2010.
    You all are very accomplished, and your resumes are very 
long. Thank you so much. [Laughter.]
    The Chairman. Thank you all for being here.
    I do not know if you want to make an opening comments?

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, I just wanted to welcome not 
only four nominees but also the second panel of three nominees. 
Thank you. Each one of you has served your Nation in an 
extraordinary way in a career of public service, and we thank 
you and your families, because we know it is a family 
sacrifice. And we particularly appreciate your willingness to 
continue to serve our country in critically important 
positions.
    I am going to put my full statement in the record, so we 
can go right to the hearing.
    But, Mr. Chairman, I need to point out that Mr. Harden and 
Mr. Schwartz should be given special attention since they are 
from Maryland. [Laughter.]
    The Chairman. As with so many of the folks in the State 
Department, they are from Maryland.
    We welcome you, we certainly do thank all the families, in 
particular, for being here and for the support.
    Senator Flake. Mr. Chairman?
    The Chairman. Yes?
    Senator Flake. May I just say, I have to go to another 
hearing, but I wanted to say how much I appreciated meeting 
with Ms. Elder and Mr. Schwartz in my office earlier. They are 
going to do great in Africa.
    People tend to go to one country and go to another, go to 
another, and they are old Africa hands. And I appreciate their 
families and their sacrifice that they have made as well. I am 
just glad that they are here, and I am glad that we are so 
well-represented on that continent.
    The Chairman. Thank you. Thank you for your tremendous 
efforts in the continent of Africa.
    Yes, sir, Senator Isakson?
    Senator Isakson. I just want to say I could not have said 
it better than Senator Flake did. I met with the nominees as 
well. They are outstanding citizens of our country. And to go 
to the countries they are going to and be the face of America 
where they are, we are very lucky to have people willing to 
sacrifice and do it.
    I commend all of you for your commitment to the country.
    The Chairman. Thank you.
    It appears you are not going to have a lot of questions. 
[Laughter.]
    The Chairman. So we thank you, Senator Isakson.
    With that, if we could begin testimony with Ms. Elder. 
Thank you.

STATEMENT OF CHRISTINE ANN ELDER, OF KENTUCKY, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF LIBERIA

    Ms. Elder. Thank you, Mr. Chairman, Ranking Member Cardin, 
and members of the committee. It is truly an honor to be here 
today as the nominee to represent the United States in Liberia.
    I am grateful for the confidence of the Secretary and the 
President in this nomination and deeply appreciative of the 
support, indeed, of my family, my friends, and my colleagues.
    I especially would like to thank my husband, Paul Hughes, 
who was himself a Foreign Service Officer and grew up in the 
Foreign Service. He is here with his sister, Alice Hughes, and 
her husband, Dr. John Sharretts. Not here but very much in our 
hearts are my stepchildren, Ellie and Christopher in Washington 
State in school, my brother in Ohio, and my parents in 
Kentucky.
    Mr. Chairman, the United States and Liberia do share a deep 
historical bond. If confirmed, I will deepen that partnership 
as Liberia continues to recover from Ebola, to restructure its 
security sector, strengthen its democracy, and expand economic 
growth and opportunity.
    It was not long ago that Liberia and its neighbors were 
mired in the Ebola crisis. Peace hard-won through daily 
determination after a devastating civil war was threatened. We 
harnessed the full force of the U.S. Government, bringing 
together Departments of Defense and State, USAID, CDC, and 
others. We sent over 3,000 U.S. troops to set up treatment 
centers and help train new health care workers to replace 
hundreds who had died trying to save others. Our assistance was 
over $500 million, and this was all in support of Liberia's own 
efforts.
    If confirmed, I will lead our Embassy team working together 
with Liberians on the Global Health Security Agenda to prevent, 
detect, and respond to outbreaks, so that they do not become 
epidemics.
    The $257 million MCC compact will boost Liberia's 
participation in Power Africa, where only 2 percent of the 
population has access to electricity. This project will 
quadruple power generation.
    We remain Liberia's closest partner on national 
reconstruction. We have invested more than $2 billion since the 
end of civil war in 2003. Of that, over $350 million went to 
help rebuild their security sector. The growing capabilities 
and competence of their forces in that sector are reflected in 
the U.N. Security Council's authorization for the further 
reduction of the UNMIL mandate to a residual force as they 
conclude their peacekeeping mandate this year.
    In recovery, the Liberian Government is rightfully focused 
on job creation. President Sirleaf understands the importance 
of battling corruption and also in advancing reforms to attract 
foreign investment.
    If confirmed, I will advance U.S. interests to the benefit 
of both of our economies. I will ensure that our assistance is 
wisely spent, and well-coordinated.
    Mr. Chairman, members of the committee, the Liberian people 
want to lift themselves up, and they are deeply grateful for 
our counsel and our support. Thank you very much for the 
opportunity to be here, and I welcome your questions.
    [The prepared statement of Ms. Elder follows:]


                 Prepared Statement of Christine Elder

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
it is a great honor to appear before you today as nominee to serve as 
the U.S. Ambassador to the Republic of Liberia. I am deeply grateful 
for the trust and confidence that the President and Secretary Kerry 
have shown in me with this nomination. If confirmed, I look forward to 
working closely with the members of this committee and their staffs to 
promote and protect U.S. interests in Liberia. It has been my privilege 
in over 25 years of public service to have worked in both the 
Departments of State and Commerce, in both the Civil and the Foreign 
Service. I have served in Mozambique as Deputy Chief of Mission and 
with other postconflict countries in transition, and have worked on 
African issues for most of the past decade.
    I can think of no higher honor than to represent the American 
people as Ambassador of the United States to the Republic of Liberia, a 
country with which the United States shares a unique history. I deeply 
appreciate the love and support of my family, friends, and colleagues 
who have made me the person before you today.
    I would especially like to thank my husband Paul Hughes, who was 
previously a Foreign Service Officer and grew up with Foreign Service 
parents, and acknowledge my sister-in-law Dr. Alice Hughes, who was 
born during their parents' assignment in South Africa, and has also 
dedicated herself to a life of public service. Unable to join us today 
but very much in our hearts are my stepchildren Ellie and Christopher, 
in school in Washington State, my brother in Ohio, and my parents in 
Kentucky.
    Mr. Chairman, the United States and Liberia share a special bond 
rooted in our deep historical ties, and preserved through our 
commitment to democracy, human rights, and economic prosperity. If 
confirmed, I will continue to strengthen our bilateral relationship and 
ensure that the United States remains a steadfast partner as Liberia 
continues to recover from the Ebola epidemic, reform its security 
sector, strengthen its democracy, and expand economic growth and 
opportunity for all its citizens.
    Not long ago, Liberia and its neighbors were mired in crisis, 
confronting the deadliest and longest-recorded Ebola outbreak in 
history. As the death toll rose, the country began to experience 
profound second-order effects: schools closed; an already fragile 
healthcare system collapsed; and commerce, industry, and tourism came 
to a standstill. Liberia's peace and democratic stability, earned 
through daily, dogged determination during the course of Liberia's 
post-civil war period, were suddenly under grave threat as a result of 
the epidemic.
    In combatting Ebola, the United States adopted a vigorous, whole-of 
government approach to support Liberia's own efforts. The State 
Department, the Department of Defense, USAID, the Centers for Disease 
Control and Prevention and other elements of the Department of Health 
and Human Services, all played critical roles. Our humanitarian 
assistance, including food aid, totaled more than $509 million. The 
President deployed almost 3,000 troops to build treatment centers and 
assist in training healthcare workers. The Government of Liberia acted 
with determination to educate the Liberian people as local health care 
workers risked and--in many cases--gave their lives to save and ease 
the suffering of others. While no one can rule out a relapse, today 
Liberia has been declared Ebola-free, and with continued assistance 
from the United States, is on its way to recovery. We have confidence 
that if there is another outbreak, the country and its neighbors will 
be better able to control its spread.
    If confirmed, I will lead our embassy's well-integrated interagency 
team, which remains deeply engaged in a partnership with Liberia to 
prevent, detect, and respond to future outbreaks before they become 
epidemics. I will make every effort to ensure U.S. assistance is spent 
wisely, and that synergetic efforts with the Liberian government and 
other partners support Liberia's development and post-Ebola recovery 
plan, as well as advance the Global Health Security Agenda.
    Thirteen years after the end of Liberia's civil war and throughout 
the Ebola crisis, the security situation in Liberia has remained 
largely stable, and the country has made major security strides. The 
United States remains Liberia's closest partner in the reconstruction 
effort, investing more than $2 billion in rebuilding the country since 
signing the peace accord in 2003, including over $350 million on 
security sector reform. Since the signing of the peace accord, the 
country has successfully held two presidential and general elections, 
as well as Senate midterm elections and several by-elections. The U.N. 
Security Council lifted targeted sanctions in September 2015, and the 
United States lifted targeted individual sanctions in November 2015. 
The U.N. Security Council also authorized reducing UNMIL's remaining 
military and police components to a residual force by June 30, 2016, as 
they complete the final phase of the peacekeeping mandate. If 
confirmed, I will continue our bilateral efforts to promote the 
Government of Liberia's capacity to manage conflict early warning and 
response, to provide for its own security, and to strengthen the 
frameworks and institutions that underpin the rule of law.
    But more work lies ahead to secure a lasting peace. Civil society 
is still fragile, and the country is challenged by widespread 
corruption, a lack of resources, and poverty. The next test will come 
in October 2017, when Liberia holds presidential elections. If 
confirmed, I will champion efforts such asUSAID's five-year, Liberia 
Elections & Political Transitions program to ensure the people of 
Liberia continue on their chosen path of democracy by conducting free, 
fair, and peaceful elections in 2017.
    As the situation in Liberia normalizes and the country continues to 
rebuild, economic development remains a top priority for the Liberian 
government. The government is rightly focused on job creation, 
including revitalization of the mining and rubber sectors, but also 
including diversification beyond commodities. President Sirleaf's 
government understands that battling corruption and advancing 
governance and economic reforms through initiatives such as the 
Partnership on Illicit Finance and accession to the WTO are important 
means of attracting foreign investment and bolstering the economy.
    Broadening the U.S.-Liberian relationship to increase emphasis on 
trade and investment will also be one of my priorities, if I am 
confirmed. I believe Liberia's growth and recovery will depend on 
inflows of private capital, and there are opportunities for American 
businesses to benefit from increased trade and investment in Liberia's 
largely untapped mining, fisheries, agriculture, power, and service 
sectors. If confirmed as Ambassador, I will work to advance U.S. 
business interests for the benefit of both the American and Liberian 
economies. I will also leverage our robust development assistance 
portfolios, spanning multiple sectors to help fight corruption, promote 
transparency and good governance, and help the Government of Liberia 
ensure that all Liberians have access to basic services, rights, and 
opportunities.
    One key means to advance economic, social, and political 
development in Liberia is the recently signed $257 million Millennium 
Challenge Corporation (MCC) Compact. Liberia's MCC Compact will enhance 
Liberia's engagement in the President's Power Africa initiative, 
focusing on the development of Liberia's power and road sectors. The 
local electricity utility currently reaches only two percent of the 
population. The MCC project will quadruple Liberia's power generation 
and significantly lower electricity rates for Liberians, which at 52 
cents per kilowatt hour, are roughly five times the U.S. average. If 
confirmed, I will work closely with Liberia's government to support 
sustainability in the power and transportation sectors through targeted 
capacity building, and by encouraging robust private sector 
participation and investment in vital infrastructure.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee, and look forward to your 
questions.


    The Chairman. We thank you very much. I know we have 
abbreviated our opening comments. As a matter fact, we just did 
not give them, to give you time to be here and us finish this 
meeting. But we thank you all again for being here and your 
service.
    Mr. Harden?

 STATEMENT OF R. DAVID HARDEN, OF MARYLAND, NOMINATED TO BE AN 
 ASSISTANT ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Harden. Chairman Corker, Ranking Member Cardin, and 
distinguished members of the committee, I am honored to appear 
before you today as the nominee for the assistant administrator 
for the Bureau of Democracy, Conflict, and Humanitarian 
Assistance at the United States Agency for International 
Development. We call it DCHA.
    If confirmed, I look forward to working alongside the 
nearly 900 men and women of DCHA who seek to end extreme 
poverty and to promote resilient democratic societies.
    I particularly want to thank my friend, colleague, and 
mentor, Tom Staal, for his leadership at DCHA over the past 18 
months. My parents are here today, and my own family is 
watching this hearing from afar. My wife, Sharon, is that the 
U.S. Embassy in Tel Aviv. Tyler, my son, is at a tech startup 
in San Francisco. Ryan is at the U.S. Air Force Academy. And 
Waverley is at Bowdoin College.
    We are a Foreign Service family. And like thousands of 
others, we have represented America in some of the toughest 
places on Earth. In 1999, Sharon and I packed up our 
preschoolers and moved to Bangladesh, and we have been overseas 
ever since.
    My family's experience living in crisis zones has forged my 
understanding of the complex challenges in the world today and 
the importance of a robust American engagement. I believe 
USAID's DCHA Bureau represents the best of America. Its offices 
of U.S. Foreign Disaster Assistance and Food for Peace are the 
first responders in global crises. They feed the hungry, give 
water to the thirsty, comfort the sick, and shelter the 
displaced.
    DCHA also assists nations with transition, and works to 
address the root causes of instability. The Office of 
Transition Initiatives and Conflict Management and Mitigation 
seek to improve delivery of basic services, give voice to the 
marginalized, and reduce the risk of violence.
    DCHA teams continually analyze risk, whether of famine, 
mass atrocities, communicable disease, or flooding, in order to 
build the resilience in our partner nations. The Center of 
Excellence on Democracy, Human Rights, and Governance helps 
nations build effective institutions and robust civil societies 
so they can provide security and justice, economic opportunity 
and political freedom for their people.
    The Office of American Schools and Hospitals Abroad 
supports world-class global education and health facilities. It 
also promotes American values.
    If confirmed, I look forward to working with Congress on 
four key areas. First, I will ensure DCHA is at peak 
operational capacity to be prepared for the crises ahead. 
Second, I will make certain our international food assistance 
remains cutting-edge, innovative, and reaches the most people 
in need. Third, I will work to expand funding for democracy, 
human rights, and governance, because we know these crises are 
in large part due to failed governance and undemocratic 
institutions. Finally, I look forward to working with the 
interagency and international colleagues to envision our world 
in 2025 and to advance a strategy to address regional 
instability and fragility.
    If confirmed, I will lead with integrity, work for results, 
and be strictly accountable for U.S. taxpayer dollars.
    Thank you for giving me the opportunity to appear before 
you today, and I look forward to your questions.
    [The prepared statement of Mr. Harden follows:]


                 Prepared Statement of R. David Harden

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the committee, I am honored to appear before you today as the 
nominee for Assistant Administrator for the Bureau for Democracy, 
Conflict, and Humanitarian Assistance (DCHA) at the United States 
Agency for International Development (USAID). I am grateful for the 
trust and confidence President Obama, Secretary Kerry, and 
Administrator Smith have in my leadership for a bureau so central to 
the United States' humanitarian, development, and foreign policy 
agenda. If confirmed, I will work to achieve USAID's mission of ending 
extreme poverty and promoting resilient democratic societies.
    I look forward to working alongside the nearly 900 men and women 
who are leading DCHA programs in approximately 115 countries across 
five continents. I want to thank these colleagues for their 
unparalleled commitment, passion, and service. I also particularly want 
to acknowledge Tom Staal for his leadership of DCHA for the last 14 
months. Tom has lived a storied life and career--he has also been a 
friend, mentor, and colleague as we worked together in Beirut, Baghdad, 
and Washington. USAID is stronger--and the world is better--because of 
Tom's service.
    I would also like to thank my mother and father--who are here 
today. They taught me to work hard and follow my dreams and then gave 
me the opportunities to do so.
    My own family is watching this hearing from afar--Sharon from the 
U.S. Embassy in Tel Aviv, Tyler at a tech start up incubator in San 
Francisco, Ryan from the U.S. Air Force Academy in Colorado, and 
Waverly from Bowdoin College in Maine.
    We are a Foreign Service family, like thousands of other families 
who represent America in some of the toughest places on earth. In 1999, 
Sharon and I packed up our preschoolers and moved to Dhaka, Bangladesh. 
We have been overseas since. The entire family has represented America 
for many years--in the hallways of the international schools, at 
gymnastic competitions, and on the streets and in the markets of South 
Asia, the former Soviet Union, and the Middle East. Street children in 
Dhaka, orphans in Almaty, and the children of war in Israel and Gaza 
have seen a compassionate America, because in the Foreign Service the 
whole family serves as diplomats abroad.
    And yet there are unique challenges. Sharon and I worried about our 
young family living far from home on 9-11 when America was attacked. We 
have battled dengue, typhoid salmonella--and the innumerable childhood 
accidents that become near crises in lesser-developed countries. We 
gave Waverly a gas mask during the early days of the Syrian war, and 
explained to Tyler and Ryan's school that they should still fly back 
home to our family despite Tel Aviv being rocketed. During the 2014 war 
between Israel and Hamas, our family went to the bomb shelter more 
times in a single month than I did during my 17 months in Iraq. Foreign 
Service families face these types of challenges every day.
    I appear before you today only because my family was willing to 
make the sacrifice of public service and accept the challenge of living 
abroad for close to two decades. To Sharon, I am forever grateful for 
her partnership on this extraordinary journey.
    My family's firsthand experience living in crisis zones has forged 
my understanding of the complex challenges the world faces today and 
the importance of U.S. engagement abroad. From my perspective, USAID's 
DCHA Bureau represents the best of America's enduring leadership and 
goodwill. DCHA's Offices of U.S. Foreign Disaster Assistance and Food 
for Peace are the first responders to global crises--whether an 
earthquake in Nepal, typhoon in the Philippines, Ebola in West Africa, 
or war in Syria, South Sudan, or Yemen. They feed the hungry, give 
water to the thirsty, comfort the sick, and shelter the displaced. 
There is no more powerful and iconic symbol of America abroad than when 
USAID sends a Disaster Assistance Response Team (DART) into the heart 
of an emergency. Recall the images in 2014 of USAID and U.S. military 
personnel deploying to stem the Ebola outbreak in West Africa and of 
USAID coordinating with the U.S. military to deliver food and water by 
air to Yazidis trapped by ISIL on Iraq's Sinjar Mountain. Today, USAID 
has DARTs coordinating the U.S. humanitarian responses alongside State 
Department and other agencies in Syria, Iraq, and South Sudan--all 
massive complex crises that have been going on for years. Just last 
week, Administrator Smith announced the deployment of a DART to 
Ethiopia to avert a humanitarian crisis arising from an El Nino-
triggered drought and to protect development gains.
    DCHA also assists nations with the difficult task of post-crisis 
political and social transition and works to address the root causes of 
instability before conflicts become humanitarian emergencies. The 
Office of Transition Initiatives, for instance, has programs in Burma, 
Lebanon, Libya, Nigeria, Pakistan, and Somalia, where they work with 
national and local leaders to provide basic services and give a voice 
to people in marginalized communities. The Conflict Management and 
Mitigation office assesses the prospects of conflict and works with 
local and international organizations to reduce the risks of violence 
by supporting grassroots demands for peace. Teams from across DCHA 
continually analyze risk, whether of famine, mass atrocities, 
communicable disease, or flooding, to build resilience in our partner 
nations. To fulfill the U.N.'s initiatives on Women, Peace, and 
Security, DCHA teams also provide protection to women and girls in 
conflict settings and promote the participation of women in 
peacebuilding. By so doing, they directly mitigate the prospect of 
collapse, instability, and political vacuum--catastrophic events that 
undermine global development gains and challenge American interests 
abroad.
    The Center of Excellence on Democracy, Human Rights and Governance 
helps nations build effective institutions and robust civil societies 
so they have better potential to provide security and justice, economic 
opportunity, and political freedom for their people. The crises we see 
today so often reflect a lack of democratic foundations, effective 
governing institutions, and respect for human rights. The Office of 
American Schools and Hospitals Abroad (ASHA) directly supports some of 
the leading global education and health facilities--facilities that 
provide world-class services and promote American ideas and values. For 
instance, ASHA supports schools, like the Abaarso School of Science and 
Technology in Somalia, which shape tomorrow's global leaders who share 
our vision of peace and prosperity.
    DCHA demonstrates extraordinary global reach and impact--it is also 
often the face of a generous America abroad when nations and people are 
at their most vulnerable.
    If confirmed, I look forward to working closely with Congress, the 
interagency, and the international community on four key areas.
    First, I will ensure that DCHA is at peak operational capacity. As 
it stands, DCHA is a highly functional and effective organization. And 
yet we know the world will see new crises--whether rapid onset natural 
disasters or greater suffering from expanding wars. To achieve peak 
capacity, we must be prepared for the crises ahead--both known and 
unknown. Working with our Offices of Programs, Policy, and Management 
and Crises Surge Support, we will continue to prioritize staffing and 
facilities alignment, budget flexibility, coordinated analytical 
functions, and cross team integration. Through our Office of Civilian-
Military Cooperation, I will deepen DCHA's already strong partnership 
with the military combatant commands. I will also expand its 
communications capabilities--both at home and abroad. I am acutely 
aware that the integrity and accountability of our assistance is of the 
highest concern and something I have championed in the West Bank, Gaza, 
Iraq, and Libya.
    Second, I look forward to working with this committee to ensure our 
international food assistance remains cutting-edge and reaches the most 
people in need. The United States has a proud history of feeding the 
world's most hungry people. The complex emergencies we face today and 
in the future will require us to continue to adapt to meet growing 
demands and challenges most effectively and cost-efficiently. We will 
continue to harness our analytical tools, technology, and resources to 
determine the appropriate mix of U.S. commodities, local and regional 
food purchases, and market-based assistance to get the right food to 
the right people at the right time.
    Third, I look forward to working with this committee to expand 
funding for democracy, human rights, and governance. The crises we face 
today are in large part a result of failed governance and undemocratic 
institutions. Extreme poverty is increasingly concentrated in fragile 
states. Sound governing structures must underpin everything we do in 
development. Additionally, strong civil societies help give voice to 
the disenfranchised; champion human rights; fight modern slavery; 
counter violent extremism; bolster anti-corruption efforts; and promote 
better responsiveness to citizen concerns. I will also tighten the 
analytical link between our work in democracy, human rights, and 
governance and its causal impact on political freedom, economic 
opportunity, and social inclusion. Democracies are more resilient to 
disasters and typically do not go to war with each other. Democracy, 
human rights, and governance must be at the center of our development 
agenda if we are to get ahead of crises and end extreme poverty.
    Finally, I look forward to working with my State Department and 
other interagency colleagues and the international community to 
envision our world in 2025, particularly as it relates to regional 
instability in the Middle East, and fragility and resilience in sub-
Saharan Africa. We must anticipate and prepare for future crisis 
drivers and consider how to better leverage emerging technology, big 
data, and the private sector into our responses. I have been impressed 
with the foresight of my predecessors--how they deepened our analytical 
capabilities, strengthened our relationships with the military, and 
integrated resilience planning. I would like to leave the same legacy 
for the next generation of DCHA leaders--envisioning and preparing for 
tomorrow's highly complex and connected world.
    Mr. Chairman, Ranking Member Cardin, members of the committee, I am 
honored to be considered as Assistant Administrator for the Bureau for 
Democracy, Conflict, and Humanitarian Assistance. I am also humbled by 
the challenges and responsibility ahead. If confirmed, I will lead with 
integrity, work tirelessly for results, and be strictly accountable for 
U.S. taxpayer dollars. Thank you for the opportunity to appear before 
you today and I look forward to answering your questions.


    The Chairman. Thank you very much.
    Ms. Richard?

STATEMENT OF ELIZABETH HOLZHALL RICHARD, OF VIRGINIA, NOMINATED 
           TO BE AMBASSADOR TO THE LEBANESE REPUBLIC

    Ms. Richard. Thank you, Mr. Chairman, and thank you, 
Ranking Member Cardin. I especially would like to thank the 
Senator from Virginia. Not all of us in the State Department 
are from Maryland. Some of us are from Virginia.
    Thank you for staying, sir.
    I am honored by President Obama's decision to nominate me 
to be Ambassador to Lebanon. If confirmed, I look forward to 
working with you to achieve the important policy objectives we 
have there.
    Over my 30 years in the Foreign Service, I have served in a 
number of challenging posts, as you noted, Afghanistan, 
Pakistan, and Yemen. In those places, I have seen firsthand 
what a huge difference the United States can make when it 
leads.
    The effects of the crises now raging across the Middle East 
make our leadership more important than ever. The Middle East 
is undergoing a period of unprecedented instability, but 
against this backdrop, the resilience of the Lebanese people is 
remarkable.
    Lebanon faces three major challenges: the conflict in 
Syria; an ongoing governance crises; and the activities of 
Hezbollah, a terrorist organization that puts its own interests 
and the interests of its benefactors and patrons ahead of those 
of the Lebanese people.
    Our partnership with the country's legitimate state 
institutions and its people is essential in helping Lebanon 
address these challenges.
    Mr. Chairman, I am really struck by the incredible 
generosity of Lebanon in welcoming more than 1 million Syrian 
refugees, and I am very, very proud of the generosity of the 
American people as well. Our assistance to Syrian refugees and 
the communities that host them has eased this burden.
    However, extremist groups like ISIL and al-Nusra continue 
to pose a grave threat to Lebanon and to U.S. interests in the 
region. With the generous support of Congress, we are helping 
Lebanon security institutions in their fight against extremism.
    Effective security must be buttressed by effective 
political leadership, however. As you know, Lebanon has been 
without a President for almost 2 years now. It is time for the 
country to elect a President and to restore a functioning 
cabinet and parliament.
    As for Hezbollah, its ongoing intervention in Syria to prop 
up the Assad regime was undertaken without the consent of the 
Lebanese people.
    The administration strongly supported the Hezbollah 
International Financing Prevention Act passed by Congress just 
last December. Our shared goal is to dismantle Hezbollah's 
international financial network while supporting, at the same 
time, the legitimate Lebanese banking and other institutions.
    If confirmed, I will do all I can to expand our anti-money-
laundering and counterterrorism finance cooperation with 
Lebanon.
    Most importantly, Mr. Chairman, I want to remember that 
Lebanon is hallowed ground for U.S. diplomats and for our 
military colleagues as well. The tragic bombings of the Marine 
barracks and the U.S. Embassy in Beirut in 1983 will never be 
forgotten.
    If confirmed, my highest priority will be the safety and 
security of all Americans in Lebanon. There is really no job 
more important to me than that. So with that, Mr. Chairman, 
members, thank you very much for the opportunity to be here 
today and I look forward to your questions.
    [The prepared statement of Ms. Richard follows:]


               Prepared Statement of Elizabeth H. Richard

    Chairman Corker, Ranking Member Cardin, members of the committee, 
thank you for the opportunity to appear before you today. I am honored 
by President Obama's decision to nominate me as U.S. ambassador to 
Lebanon. If confirmed, I look forward to working closely with the 
members of this committee on achieving our policy objectives in 
Lebanon.
    Over the course of my 30 years as a Foreign Service Officer, I have 
had the privilege of serving in some of our most challenging posts, 
including Afghanistan, Pakistan, and--most recently--Yemen. In my 
diplomatic efforts to advance U.S. policy objectives, as well as in 
overseeing security assistance, counter-narcotics, economic and 
governance programs, I have seen firsthand how influential the United 
States can be when it engages. The effects of the crises raging across 
the Middle East on our national interests make U.S. leadership more 
imperative than ever.
    The Middle East is undergoing a period of unprecedented 
instability. The roots of this instability are deep and systemic: weak 
political legitimacy, ineffective institutions, fragile economies, and 
religious sectarianism. Amidst this backdrop of uncertainty, the 
resilience of the Lebanese people stands out. For centuries, Lebanon 
has been a rich tapestry of different religions and ethnicities. 
Respect for religious freedom and confessional tolerance lie at the 
very core of Lebanese identity. We must do all we can to help Lebanon 
continue to uphold these principles. If confirmed as ambassador, I will 
dedicate myself to further strengthening our partnership with Lebanon.
    Lebanon today faces three major challenges: the spillover effects 
of the conflict in Syria, which has brought more than a million 
refugees to Lebanon; a political crisis that has severely hindered the 
work of government institutions and has deprived the Lebanese people of 
basic services; and--of course--the activities of Hizballah, a 
terrorist organization that puts its own interests and those of its 
foreign backers ahead of the Lebanese people. Our partnership with 
Lebanon's legitimate state institutions and our assistance to the 
Lebanese people are essential in helping Lebanon address all three of 
these challenges.
    I am struck by the incredible generosity of towns and villages all 
across Lebanon in welcoming more than a million Syrian refugees. And I 
am very proud of the generosity of the American people as well. Our 
assistance to Syrian refugees--and the Lebanese communities which have 
graciously hosted them for nearly five years--has helped to alleviate 
the tremendous burden on the country. Just last month in London, 
Secretary Kerry announced over $133 million in new humanitarian aid, 
bringing the U.S. contribution to Lebanon to over $1.1 billion since 
the start of the crisis. The Department is grateful to Congress for 
supporting this assistance, which demonstrates America's unwavering 
resolve in addressing one of the most heart wrenching situations in the 
world today. If confirmed, I will work hard to help Lebanon address 
this enormous humanitarian challenge.
    Extremist groups such as ISIL and the Nusra Front pose a grave 
threat to Lebanon, and to U.S. interests in the region. Our partnership 
with Lebanon's security forces has played a critical role in preserving 
Lebanon's security against such threats. Lebanon is also a member of 
the Counter-ISIL Coalition we lead. If confirmed, I will do my best to 
build upon our strong relationships with the Lebanese Armed Forces and 
the Internal Security Forces. The November 12 bombing in Beirut, which 
killed 41 innocent civilians and injured many more, is a tragic 
reminder of the threat posed by ISIL. I was moved to learn that the 
U.S. Congress observed a moment of silence on the floor soon after the 
attack. This gesture showed that the American people stand shoulder to 
shoulder with the Lebanese as they battle ISIL and other extremists.
    With the generous support of the Congress, we are supporting the 
Lebanese military with the tools and training it needs to fight ISIL 
and other extremists. Our security assistance to the Lebanese Armed 
Forces, more than $150 million in fiscal year 2015, makes a real 
difference on the ground. The Lebanese military has turned the tide 
against ISIL along the rugged border with Syria, so that northeastern 
Lebanon is no longer in immediate danger from extremist groups. 
Lebanese aircraft now use U.S.-supplied Hellfire missiles to pinpoint 
terrorists and take them out. Our partnership with the Lebanese 
Internal Security Forces is no less impressive. For example, FBI-
trained Internal Security Forces now conduct forensic investigations to 
help bring justice for the Lebanese people in cases of terrorist 
attacks and serious crimes.
    Effective security needs to be buttressed by effective political 
leadership. Lebanon has been without a president for almost two years--
much too long. Now is the time for Lebanon to uphold its democratic 
principles and elect a president according to the Lebanese 
constitution. The Lebanese people deserve a government that can deliver 
basic services, promote economic prosperity, and address the country's 
most pressing security challenges. The United States has been clear and 
consistent: Lebanon needs a president and a fully functioning Cabinet 
and parliament without delay. This is first and foremost a Lebanese 
responsibility; they are the ones who have the greatest stake in their 
country's success. Through our leadership in the International Support 
Group for Lebanon, the United States has rallied the international 
community to speak with a united voice in calling for an end to the 
presidential vacancy. If confirmed, I will dedicate myself to 
supporting the Lebanese in their efforts to seat a functioning 
government.
    If confirmed, I look forward to working with Lebanon's voices for 
moderation and progress to support Lebanon's quest for full sovereignty 
and independence. Hizballah's ongoing intervention in Syria to prop up 
the Asad regime--undertaken without the consent of the Lebanese 
people--contradicts the 2012 Baabda Declaration, which clearly--and 
wisely--states Lebanon's policy of dissociation from foreign 
entanglements. Hizballah's activities in Syria create serious security 
challenges for Lebanon. If confirmed, my mission will be to do 
everything I can to support Lebanon to exercise full sovereignty 
throughout the country and to help build up the Lebanese military, its 
sole legitimate defender.
    The administration strongly supported the Hizballah International 
Financing Prevention Act passed by the Congress last December. We have 
made clear to all that our goal is to dismantle Hizballah's 
international financial network while supporting Lebanese institutions 
and the Lebanese people. This will contribute directly to promoting 
Lebanon's economic prosperity.
    The success of the Lebanese banking sector, a backbone of the 
country's economy, relies on upholding an already excellent reputation. 
Both Lebanon and the United States have an interest in ensuring 
Hizballah cannot penetrate the Lebanese financial sector. If confirmed, 
I will dedicate myself to working with the Lebanese financial sector to 
enhance our anti-money laundering and terrorism finance cooperation.
    Our commitment to Lebanon's economic prosperity is one of the 
cornerstones of our bilateral relationship. From university 
scholarships that foster a new generation of Lebanese entrepreneurs to 
water and sanitation projects for rural communities, our assistance 
helps Lebanon deal with the economic fallout of a region in turmoil. If 
confirmed, I hope to expand trade between Lebanon and the United States 
and to promote U.S. exports to Lebanon. Lebanon's accession to the 
World Trade Organization would be a positive development and we stand 
ready to help better connect Lebanon to the global economy.
    Most importantly--I want to remember that Lebanon is hallowed 
ground for America's diplomats and our colleagues in uniform. The 
tragic bombings of the Marine barracks and the U.S Embassy in Beirut in 
1983 will never be forgotten. If confirmed, my highest priority will be 
the safety and security of all Americans in Lebanon. There is no job 
more important to me.
    Mr. Chairman and members of the committee, I would like to express 
my sincere appreciation for this opportunity to address you. If 
confirmed, I look forward to seeing you and members of your staff in 
Beirut. I welcome the opportunity to address any questions you might 
have. Thank you.


    The Chairman. Thank you for your testimony.
    Mr. Schwartz?

 STATEMENT OF STEPHEN MICHAEL SCHWARTZ, OF MARYLAND, NOMINATED 
      TO BE AMBASSADOR TO THE FEDERAL REPUBLIC OF SOMALIA

    Mr. Schwartz. Chairman Corker, Ranking Member Cardin, and 
members of the committee, it is an honor to appear before you 
today to be considered for the position of United States 
Ambassador to the Federal Republic of Somalia. I am sincerely 
grateful to President Obama and Secretary Kerry for the 
confidence they have shown in me through this nomination.
    Mr. Chairman, please allow me to introduce my family. With 
me here today are my wife, Kristy Cook, and our two children, 
Hannah and Jonas. I thank each of them for their support and 
sacrifice.
    In addition, I would like to pay tribute to my father, 
Robert, who fell ill and was unable to travel here for the 
hearing, and to my late mother, Carole. Their influence 
continues to shape and motivate me every day.
    Mr. Chairman, the people of Somalia are regaining control 
of their country, and intensified U.S. engagement is vital to 
their success, and to ours. With measured, but real progress, 
Somalia is no longer a failed state, but a fragile recovering 
country with promise. Somalia's vibrant diaspora members are 
making important contributions to this renewal.
    Last May, Secretary Kerry became the first Secretary of 
State to visit Somalia. While there, he announced that planning 
had begun to reestablish U.S. diplomatic premises in Mogadishu. 
If confirmed, fulfilling that commitment will be one of my top 
priorities, with the safety and security of U.S. Government 
personnel always foremost among my considerations.
    Mr. Chairman, we are working with Somalia's international 
partners on security, building governance institutions, and 
providing relief and development. For security, our top 
priority is to degrade al-Shabaab, an Al Qaeda affiliate. We 
are achieving this goal primarily by supporting the African 
Union Mission in Somalia, also known as AMISOM, and building 
the capacity of the Somalia military and police.
    Security gains have created space for political 
developments, as outlined in Somalia's Vision 2016. In the 
coming months, Somalis plan to continue developing a new 
constitution, complete the formation of regional 
administrations, and agree on the rules governing the electoral 
process.
    To grow the economy and build capacity, the United States 
supports the New Deal Compact as the basis of a strong Somali-
led development partnership. Much more progress is needed, 
however, if Somalis are to enjoy a better future.
    More than 20 years of conflict have uprooted 2 million 
Somalis both in and outside the country. Today, more than 
700,000 Somalis are estimated to be acutely malnourished--many 
of them children.
    Mr. Chairman, Somalia has many challenges but it is moving 
in the right direction and can count on the United States as a 
full partner. My nomination reflects our deepening relationship 
with the country and its people, and our faith that better 
times are ahead.
    If confirmed, it will be my honor to lead our mission as 
the first United States Ambassador to Somalia in over 25 years. 
I thank you.
    [The prepared statement of Mr. Schwartz follows:]


               Prepared Statement of Stephen M. Schwartz

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
it is an honor to appear before you today to be considered for the 
position of United States Ambassador to the Federal Republic of 
Somalia. I am sincerely grateful to President Obama and Secretary Kerry 
for the confidence they have shown in me through this nomination.
    Mr. Chairman, please allow me at this time to introduce my family. 
With me today are my wife, Kristy Cook, and our two children, Hannah 
and Jonas. The Foreign Service offers families unusual opportunities 
and challenges, and I thank each of them for their support and 
sacrifice. In addition, I would like to pay tribute to my father 
Robert, who is recovering from surgery and was unable to travel; and to 
my late mother, Carole, who died just two months before I began my 
Foreign Service career. Their influence continues to shape and motivate 
me every day.
    Mr. Chairman, the people of Somalia are regaining control of their 
country and intensified U.S. engagement is vital to their success, and 
to ours. With measured but real progress over the last few years, 
Somalia is no longer a ``failed state,'' but a fragile, recovering 
country with promise. Somalia's vibrant diaspora members are returning 
to help reconstruct their nation and, in so doing, are renewing and 
strengthening the linkages between the United States and Somalia.
    On a governmental level, we are doing the same. The Somali 
government reestablished its embassy in Washington, D.C. last November, 
after a 24-year absence. Two years earlier, the United States 
officially recognized the Federal Government of Somalia for the first 
time in 21 years.
    Last May, Secretary Kerry became the first Secretary of State ever 
to visit Somalia. While there, he announced that planning had begun to 
reestablish U.S. diplomatic premises in Mogadishu. As a first step, in 
September we established the U.S. Mission to Somalia, co-located in 
Embassy Nairobi. If confirmed, fulfilling the Secretary's commitment 
will be one of my top priorities, with the safety and security of U.S. 
government personnel always foremost among my considerations.
    Mr. Chairman, our policy for Somalia is focused on three key areas: 
security, governance institutions, and relief and development. For 
security, our top priority is to degrade al-Shabaab, an al-Qaida 
affiliate, so it is no longer a pernicious and destabilizing force. If 
confirmed, I will help lead our efforts to support and strengthen the 
African Union Mission in Somalia, better known as AMISOM, while we work 
to build the capacity of the Somali military and police so that they 
can assume responsibility for their own country's security.
    Security gains have created space for political progress and state 
formation, as outlined in Somalia's ``Vision 2016.'' Much more work 
needs to be done to hold a referendum on a permanent national 
constitution; complete the creation of Federal Member States and 
establish functioning governmental authorities; and to adopt rules 
governing political parties and an electoral process. If confirmed, I 
will lead the United States government's efforts to help Somalia build 
these institutions as the foundations of durable, accountable, 
inclusive, and effective governance.
    To grow the economy and build capacity, the United States has 
supported the New Deal Compact as the basis of a strong, Somali-led 
development partnership. If confirmed, I will redouble our efforts to 
work with Somali authorities, civil society, the private sector, and 
the international community to improve education, support growth and 
employment in key economic sectors, and help Somalis realize a better 
future in areas liberated from al Shabaab's oppressive rule.
    Over two decades of conflict have left over a million Somalis 
displaced in their own country, and almost a million as refugees in 
neighboring countries. More than 700,000 Somalis are estimated to be 
acutely malnourished, many of them children. The United States is 
committed to addressing humanitarian needs in Somalia and supports 
efforts to achieve durable solutions.
    Mr. Chairman, Somalia has many challenges, but it is moving in the 
right direction. My nomination is a reflection of both our deepening 
relationship with the country and its people, and our faith that better 
times are ahead. I can assure you that, if confirmed, it will be my 
honor to lead our mission as the first United States Ambassador to 
Somalia in over twenty-five years. I will work hard to advance U.S. 
interests, and strengthen our bilateral relationship. I look forward to 
the opportunity to work with the committee to achieve those goals.


    The Chairman. Thank you all. We are very fortunate to have 
people of your caliber in the Foreign Service and do the things 
that you do, and the sacrifice that you have made on behalf of 
our country for many, many years.
    I am going to defer on oral questions. I will give written 
questions. I hope that does not disappoint you. I know you all 
prepped for this meeting. I think Senator Cardin may be doing 
the same thing. I will let him speak to his own, but I am going 
to defer, because of the length of this meeting, and the fact 
that we have another panel. I am going to do mine in writing.
    But again, your testimony is very good. We are very 
fortunate to have people, again, of your caliber, and we thank 
you.
    Senator Cardin. Thank you, Mr. Chairman.
    I really just want to underscore what the chairman said. 
The nomination process is a very important process in the 
Senate and confirmations we take very, very seriously. A good 
deal of work is done before the hearings in going through the 
resumes and records of those who are nominated by the 
President.
    We had a relatively easy task with the panel before us and 
the next panel, because your career service to our country is 
incredible, and we thank you very much for everything you have 
done to help America.
    We will be asking questions for the record, I want to make 
that clear, because it gives us a chance also to emphasize 
areas of major concern.
    So I have a quote from Mr. Harden. In his statement, he 
covered an issue that I will be talking to each one of you 
about in your positions, and that is, `` I look forward to 
working with this committee to expand funding for democracy, 
human rights, and governance. The crises we face today are in 
large part a result of failed governance and undemocratic 
institutions. ... I will also tighten the analytical link 
between our work and democracy and human rights and governance 
and its impact on political freedom, economic opportunities, 
and social inclusion. Democracies are more resilient to 
disasters and typically do not go to war with each other. 
Democracies, human rights, and governance must be at the center 
of our development agenda if we are going to get ahead of 
crises and extreme poverty.''
    The questions I am going to be asking all the nominees, 
including second panel, is what you have done to advance human 
rights in your career and how you intend to use the position, 
if confirmed, to advance our ideals.
    America's strength is in its values. Although we do have 
the strongest military in the world, there is no question about 
that, and we have very strong commitment to diplomacy and 
development assistance, it is in promoting these values that 
give America its strength and stability globally.
    We are going to be asking you to make a commitment to work 
with this committee, to advance those good governance issues in 
the countries. And the countries that are represented, the 
three Ambassador nominees here, all are challenged. We need to 
do a more effective job using your diplomatic skills. And in 
the next panel, we have countries also that we can do better.
    So I look forward to your response, but more importantly, I 
look forward to working with you to advance America's values so 
we can get world stability. Thank you.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks to the witnesses. I cannot help but notice that 
four of the seven on these two panels are Virginians. You can 
see, Mr. Chair, why I fought so hard to be on this committee. I 
see more Virginians here than if I was down in Richmond 
strolling around my neighborhood.
    But the Virginia connection with the State Department, nine 
Secretaries of State and then so many State Department 
personnel, Foreign Service personnel live in the commonwealth, 
is something that we really cherish.
    It is one of the reasons why Virginians care a lot about 
these issues. These foreign relations issues are not 
particularly foreign in a State where one out of nine 
Virginians was born in another country, and they care deeply 
about where they are from, and they care deeply about the work 
that you do.
    I also want to thank Mr. Harden. He schlepped me around the 
West Bank twice. I know in the life of a Foreign Service 
professional, it is always good to have a codel, but the best 
day is the day that they leave. [Laughter.]
    Senator Kaine. But you are a good sport.
    I want to focus on Lebanon. Ms. Richard, I am so glad you 
pointed out that the Lebanese Embassy, the U.S. Embassy in 
Beirut, is hallowed ground. Anybody who wonders about the work 
that we do and how hard it is, or anybody who wonders about the 
sacrifice that people like you all make, the need to go to the 
U.S. Embassy in Beirut.
    Senator King and I serve together on the Armed Services 
Committee. We were there in February 2014, and we walked out on 
a morning and we went to the memorial there for the victims of 
the two bombings, the Embassy bombing in 1983 and the Embassy 
Annex bombing in 1984, as well as a memorial to the Marines who 
were killed in the barracks bombing, and other State Department 
and U.S. personnel who were killed in the years to follow 
during the war. It is a very, very sobering thing, to see the 
number of Embassy personnel, both U.S.-born and Lebanese, who 
were killed. It makes the risk so palatable.
    We then went upstairs at that weird hotel that they have on 
the Embassy grounds, and in the middle of a meeting, we were 
getting ready to go downtown to meet with President Suleiman, 
we heard an explosion. We walked out on the balcony and we 
could look into downtown Beirut and see the smoke coming up 
from a suicide bomb that had been detonated in front of an 
Iranian cultural center.
    Angus and I were sure our meetings were going to get 
canceled. The Embassy personnel there was used to dealing with 
it. The Lebanese President was used to dealing with it. And 
just quickly, for my colleagues, we went ahead and did the 
meeting, and when we were with President Suleiman, who at that 
point was 2 months from the end of his term, he was taking 
calls from everybody trying to deal with the crisis while he 
was meeting with us.
    At one point, he just looked up and said, it was not like 
he was looking at us, but he just said, I think this is our 
fault. And Angus and I did not know what he meant. So we said, 
what do you mean, this is your fault? He said, I think it is 
Christians' fault. He said, we could have played the role of 
peacemaker and bridge builder but instead what we have done is 
we played the role of trying to be with whoever was up at 
whatever point in time.
    Now a statement that is made like that in the heat of 
emotion, I am a Catholic, I blame myself for everything, too, 
so I did not necessarily take it as a completely accurate 
description of the reality, but it was a cri de coeur really of 
despair and a tough circumstance.
    Yet here we are, 2 years later, and there is not a 
President. We have been 2 years without a President.
    We had Lebanese parliamentarians visit us 2 weeks ago. 
Senator Shaheen and I visited with them. They really could not 
see a particular path forward that they could describe to us.
    I have to believe that in any Nation, much less one that is 
in the midst of a refugee crisis where now one in four of the 
population of the country are refugees from Syria, in any 
Nation, the lack of a President would be a challenging 
governance question. In this Nation, it has to be just 
devastating.
    So what can we do, mindful of the notion that these nations 
have to figure out their own internal politics themselves? But 
what can we do? We invest a lot in Lebanese Armed Forces 
through security cooperation. They deeply appreciate that. We 
saw that in action.
    But what can we do to help them move to a chapter where 
they are not going to be gridlocked while they are in the midst 
of such difficulty?
    Ms. Richard. Thank you, Senator. Thank you, really, for 
your interest in Lebanon. It is such an important part of the 
region.
    At the end of the day, you are exactly right. The Lebanese 
have to solve this problem, but we can do a lot, I think in 
encouraging them and forcing them to face up to the fact that, 
at the end of the day, what will save Lebanon are institutions 
and not personal relationships and individuals.
    The cabinet does meet from time to time, and they met in 
November to pass a very important anti-money-laundering law. So 
they are able to focus and realize things that are in their 
national interests.
    But you are right. We must do a lot more to encourage them 
and to work with others who have influence in Lebanon--we are 
not the only ones, the Saudis and others--to help focus the 
Lebanese leadership on the need for restoration of the 
institutions.
    Senator Kaine. The other thing I would like you to comment 
on, the parliamentarians were expressing the concern that they 
feel like they are victims in a big proxy war between Saudi 
Arabia and Iran.
    There is an old-fashioned American phrase, they did not use 
it, but I have heard it before, ``When the elephants fight, the 
fleas get trampled.'' They kind of feel like there is a proxy 
war that is going on, and they are just kind of like the 
collateral damage, sometimes.
    How, diplomatically, can we deal with that issue? I know we 
have Saudi Arabia and Iran at the table with respect to the 
ceasefire discussions in Syria. Is there anything we can do 
with respect to promoting stability in Lebanon that we should 
be asking while they are there at the table on the Syrian 
issue, which is so connected to Lebanon, that we should be 
asking of them?
    Ms. Richard. Yes, Senator. You are absolutely right. We do 
have this opportunity in the context of Syria.
    We have talked about this with the Saudis, with the 
Iranians, and with others in the region, about the need to 
separate Lebanon from the real issues at hand in Syria.
    I know that Secretary Kerry and others continue to make 
that point, the importance of separating Lebanon out.
    At the same time, we are talking with Saudi Arabia even now 
about this issue of withdrawing support of the Lebanese Armed 
Forces and Internal Security Forces.
    Senator Kaine. As I understand it, Saudi Arabia has 
recently delayed indefinitely about $3 billion worth of 
military support for the Lebanese Armed Forces.
    Ms. Richard. Yes, sir. And our point to them is that if the 
ultimate objective here is to limit the ability of Hezbollah to 
do what it is doing, the solution is to invest in Lebanese 
institutions and not to withdraw support from them at this 
critical time.
    Senator Kaine. What is your perception on the Lebanese 
institution side? This will be my final question. What is your 
perception of the degree to which the Lebanese Armed Forces are 
viewed as an inclusive body that is not too slanted toward one 
of the power factions or another?
    Ms. Richard. Both the Lebanese Armed Forces, Senator, and 
the Internal Security Forces, which is the police, are seen to 
be extremely professional and not very much polluted, let us 
say, by some of the worst parts of the interconfessional 
fighting. Very professional, very dedicated, and loyal to the 
government.
    We have high confidence in both institutions. That is why 
we continue to work with them.
    Senator Kaine. Great. Thank you so much.
    And thanks to all the witnesses. I have great respect for 
the service you provide.
    The Chairman. Thank you.
    Having been to Lebanon, and certainly with the existing 
situation that is there and the resilience of these people in 
light of what is occurring, it is amazing. I appreciate your 
emphasis, not to in any way diminish the roles that the other 
three are going to play.
    We thank you so much for being here. We hope that you will 
respond to our written questions promptly. I know that you 
will. Again, we thank you for your commitment to our country 
and to what you do on our behalf.
    With that, with no fireworks, you are welcome to leave. You 
are dismissed. Thank you.
    Next we will move to the second panel. We will begin with 
introductions, and we thank all of you for being here.
    Ms. Kelly Keiderling, a career member of the Foreign 
Service, class of minister counselor, is Principal Deputy 
Assistant Secretary in the Bureau of Educational and Cultural 
Affairs at the Department of State, a position she has held 
since 2013. Ms. Keiderling served as deputy chief of mission at 
the U.S. Embassy in Venezuela from 2011 to 2013, strategic 
language issues coordinator in the Bureau of Human Services in 
2010, and chief of staff in the Office of Iraq Affairs from 
2009 to 2010.
    Thank you so much for being here.
    Next, we have Mr. Mark Sobel to be U.S. executive director 
of the International Monetary Fund for a term of 2 years. Mr. 
Sobel is a Deputy Assistant Secretary for international 
monetary and financial policy at the U.S. Department of 
Treasury. Mr. Sobel has worked for the U.S. Department of 
Treasury since 1978 in a variety of positions, having served in 
his current position since 2000.
    We welcome you here.
    Lastly, we have Mr. Adam Sterling, a career member of the 
Foreign Service, class of counselor. He currently serves as 
deputy chief of mission at the U.S. Embassy at The Hague in the 
Netherlands, a position he has held since 2013. He serves 
concurrently as charge at The Hague from 2013 to 2014. 
Previously, he served as deputy chief of mission at the U.S. 
Embassy in Azerbaijan from 2010 to 2013, with service as charge 
from 2010 to 2011 and during 2012. He also served as director 
for Central and Eastern European affairs on National Security 
Council staff from 2006 to 2009.
    Again, a very distinguished panel whose service we 
appreciate deeply, and certainly the support of their family 
members and others that allow them to do what they do so well.
    So with that, Ms. Keiderling, if you would begin, and 
summarize your comments.
    Without objection, for both panels, your written testimony 
will certainly be entered into the record. Again, we thank you. 
And you can begin.

STATEMENT OF KELLY KEIDERLING-FRANZ, OF VIRGINIA, NOMINATED TO 
       BE AMBASSADOR TO THE ORIENTAL REPUBLIC OF URUGUAY

    Ms. Keiderling-Franz. Thank you, Mr. Chairman, and to all 
the members of the committee. It is an honor to appear before 
you today as President Obama's nominee to serve as United 
States Ambassador to the Oriental Republic of Uruguay. I deeply 
appreciate the confidence that President Obama and Secretary 
Kerry have placed in me by sending my name to the Senate for 
your consideration.
    My family accompanies me here today, my husband, David 
Franz, who is also a Foreign Service Officer; my daughter, 
Katherine; my son, Alex. Yes, we pulled them out of school so 
that they can learn how our government functions.
    Like my kids who have grown up in the Foreign Service, I 
too am a child of the Foreign Service. My father grew up in the 
New Jersey of the Great Depression, and he was forever grateful 
and very proud to represent our country as a Foreign Service 
Officer. He met my Bolivian mother at his first overseas post 
in Cochabamba, Bolivia.
    I grew up in this bicultural, international environment as 
an outsider. My parents taught me to consider various points of 
view and to search for common ground. So since entering the 
Foreign Service in 1988, I have a carried that essential 
approach with me, building bridges of understanding and of 
joint endeavor.
    Overseas, I have served three tours in the Western 
Hemisphere, two tours in post-Soviet countries, and three tours 
in Africa. I believe that the breadth of my career experiences 
and work on various policy issues would prepare me well to 
represent the United States, should you vote to confirm me.
    The United States and Uruguay cooperate across a broad 
spectrum of issues. We are partners in making our world more 
secure. We fight against drug traffickers, human smugglers, 
illicit financial flows, cybercriminals, and international 
terrorism. We cooperate in international peacekeeping and the 
protection of civilians. We seek to increase bilateral trade 
and investment, to create more jobs and opportunity at home.
    With Uruguay, we can reassert our hemisphere's commitment 
to democratic governance, to freedom of expression and freedom 
of assembly, to freedom from arbitrary detention and arrest, 
and to independent judiciaries.
    Both Uruguay and the United States have a common cause in 
the equal treatment of people without regard to their race or 
gender, sexual orientations, social origins, or religion. We 
believe human rights are universal and intrinsic to each 
individual.
    The United States and Uruguay share these many interests 
and values. And should you vote to confirm me as U.S. 
Ambassador to Uruguay, my commitment to you and to my fellow 
Americans is to do my best to help build a world that is more 
secure, more prosperous, and more just. Thank you.
    [The prepared statement of Ms. Keiderling-Franz follows:]


              Prepared Statement of Kelly Keiderling-Franz

    Mr. Chairman, Ranking Member Cardin, members of the committee, it 
is an honor to appear before you today as President Obama's nominee to 
serve as the United States Ambassador to the Oriental Republic of 
Uruguay. I deeply appreciate the confidence that President Obama and 
Secretary Kerry have placed in me by sending my name to the Senate for 
your consideration.
    My family accompanies me today: my husband David Franz, who is also 
a Foreign Service Officer, my daughter Katherine and my son Alex.
    Like my kids who have grown up in this business, I, too, am a child 
of the Foreign Service. My father grew up in the New Jersey of the 
Great Depression. He was forever grateful and proud to represent our 
country as a Foreign Service Officer. He met my Bolivian mother at his 
first overseas post, in Cochabamba, Bolivia.
    I grew up in this bicultural environment, and was always the 
foreigner, the outsider. Overseas, my father and mother taught me that 
the people around me would judge the United States based on my own 
character and actions. I did my best as a kid to be worthy of that 
responsibility, even though I thought back then that it was an unfair 
burden. My parents also taught me to look beyond myself and consider 
various viewpoints and motivations and then to search for common 
ground.
    Since entering the Foreign Service in 1988, I've carried that 
essential approach with me, building bridges of understanding and of 
joint, principled endeavor. Overseas, I've served three tours in the 
Western Hemisphere, two tours in post-Soviet nations, and three tours 
in Africa. At State Department headquarters, I've worked in a variety 
of assignments, most recently, in the Bureau of Educational and 
Cultural Affairs. I believe that the breadth of my career experiences 
and work on various policy issues would prepare me well to represent 
the United States, should you vote to confirm me for the position of 
United States Ambassador to Uruguay.
    The United States and Uruguay cooperate across a broad spectrum of 
common interests. If confirmed, I would continue and strengthen our 
joint endeavors. The United States and Uruguay are partners in the 
fight against drug traffickers, illicit financial flows, cyber 
criminals, human smugglers, and international terrorism.
    On the international stage, our countries cooperate in 
international peacekeeping operations and the protection of civilians 
in conflict areas. Uruguay has a seat on the U.N. Security Council for 
the next two years; we look forward to engaging Uruguay on the issues 
that arise before the Council.
    Both our countries seek to increase bilateral trade and investment 
to create more jobs and economic opportunity at home. We prepare our 
young people with 21st century, global skills so that they might be 
successful and contribute to our societies. We seek effective responses 
to climate change and to building resilient communities.
    The United States and Uruguay have a common commitment to 
democratic governance and the defense of human rights. If confirmed, I 
would work with Uruguayan leaders to reassert our hemisphere's 
commitment to freedom of expression, freedom of assembly, freedom of 
the press, freedom from arbitrary arrest or detention, to fair and 
independent judiciaries, and to responsive legislatures.
    Both Uruguay and the United States have a common cause in the equal 
treatment of people without regard to their race, gender, sexual 
orientation, ethnicity, social origin, or religion. We seek to 
reintegrate victims of human trafficking back into our societies. We 
believe human rights are universal and intrinsic to each individual.
    The United States and Uruguay share these many interests and 
values. We believe that the law applies equally to all and that our 
nations are stronger because of the rule of law. Both our nations have 
been proponents of creating--and defending--international norms that 
make our global systems more secure, that increase economic prosperity, 
and that assert that citizens have a right to determine how they are 
governed.
    Should you confirm me for the position of U.S. Ambassador to 
Uruguay, my commitment to you, members of the committee, and to my 
fellow Americans is to do my utmost to nurture and strengthen the 
strong partnership between the United States and Uruguay, and to help 
build a world that is more secure, more prosperous, and more just.


    Senator Cardin. [Presiding.] Thank you very much.
    Mr. Sobel?

  STATEMENT OF MARK SOBEL, OF VIRGINIA, NOMINATED TO BE U.S. 
     EXECUTIVE DIRECTOR OF THE INTERNATIONAL MONETARY FUND

    Mr. Sobel. Thank you, Chairman Corker. Thank you, Ranking 
Member Cardin. I thank all the members of the committee. I am 
greatly honored to have been nominated to serve as U.S. 
executive director to the IMF. I thank Secretaries Geithner and 
Lew for their support.
    I am delighted to be joined today by my wife, Martha 
Halperin.
    In the interest of brevity, I will shorten my statement, 
just for the record. Seventy years ago, as our brave soldiers 
fought in World War II to liberate the globe from tyranny and 
dictatorship, our Nation's financial diplomats took the lead in 
creating a new vision for international economic cooperation. 
Their vision shunned protectionism and beggar-thy-neighbor 
currency policies, forces that helped catalyze war, and instead 
trumpeted multilateralism and shared prosperity.
    At the center of that vision, they created the IMF. Since 
its inception, the fund has well-served the world economy and 
U.S. national security and economic interests, whether it be in 
helping to mitigate economic crises in Latin America in the 
1980s, support the transition of the ex-Soviet States in the 
1990s, combat the Asian and emerging-market crises of the 
latter 1990s, provide concessional support and debt relief for 
poverty alleviation in low-income countries, or tackle the 
European crises of the past years.
    Without the IMF, these developments had the potential to 
rock geopolitical stability to a much greater extent, often in 
countries with strategic significance to our national security. 
Without the IMF, these developments also had the potential to 
spread more virulently around the world and seriously harm U.S. 
growth and jobs through decreased export opportunities, lost 
foreign investment, and financial shocks.
    Throughout my career, I have seen firsthand the IMF's 
strengths. Its ability to act as the world's first and rapid 
crisis responder is an unparalleled global public good, as is 
its excellence in designing and supporting country reform 
programs. The IMF brings together officials from around the 
world, creating a culture of shared understanding. It fosters 
multilateral rules of the road. Its technical assistance helps 
countries build infrastructure for more robust economic 
policies. The IMF surveillance can help prevent crises.
    But despite the fund's strengths, the organization, like 
any other, has room for improvement, for example in better 
analyzing and articulating policies to tackle modest global 
growth, addressing global rebalancing and exchange-rate issues, 
strengthening its work on crisis prevention and debt 
sustainability, supporting pro-poor spending in low-income 
countries, and helping make financial sectors more resilient.
    I firmly believe in tenaciously defending U.S. interests 
and in advancing multilateralism, as well as in working 
pragmatically and collegially with analytic rigor in a 
nonpartisan manner. I also believe in the IMF's mission and 
that our Nation's leadership of the fund is critical. Those 
beliefs have guided my career.
    If confirmed as U.S. executive director, I will work 
vigorously to continue to strengthen and improve the IMF 
consistent with those beliefs. I will dedicate myself to doing 
my utmost to work with Congress to help forge a stronger 
consensus in our country in support of the IMF and its critical 
global role.
    And I thank this committee for its strong backing of the 
fund in securing the recent passage of legislation to implement 
the 2010 quota and governance reforms.
    Again, to have been nominated by the President to represent 
the United States in the IMF, the very institution at the 
center of America's post-World War II global economic and 
financial vision, is a tremendous and humbling honor and a 
responsibility that I am eager to undertake. Thank you.
    [The prepared statement of Mr. Sobel follows:]


                    Prepared Statement of Mark Sobel

    Thank you Chairman Corker, Ranking Member Cardin and members of the 
committee. I am honored that President Obama nominated me to serve as 
Executive Director of the United States to the International Monetary 
Fund (IMF), and I am grateful to Secretary Geithner, Secretary Lew, 
Under Secretary Nathan Sheets, and former Under Secretary Lael Brainard 
for their strong support throughout my career. I am delighted to be 
joined today by my wife, Martha Halperin.
    Working with talented Treasury colleagues and senior officials in 
administrations from both parties in a career spanning over three 
decades in the civil service, I have had the rare privilege and honor 
of holding a front row seat in the making of American financial 
history.
    Since 2000, I have served as Deputy Assistant Secretary for 
International Monetary and Financial Policy. During the transitions in 
2001 and 2009, I had the great honor of being designated as the Acting 
head of International Affairs and I also served in the past year as the 
Acting U.S. Executive Director at the IMF. Earlier in my career, I 
served as an Assistant Financial Attache in Bonn, Germany; Director of 
Treasury's International Monetary Policy and Transition Economy 
Offices; and a member of the staff of the U.S. IMF Executive Director.
    Over the last decade, I have been particularly proud to play a role 
in America's leadership in building and establishing the G-20 Finance 
Ministry and Leaders process and reforming the IMF.
    Seventy years ago, as our brave soldiers fought in World War II to 
liberate the globe from
    tyranny and dictatorship, our nation's financial diplomats took the 
lead in creating a new vision for international economic cooperation. 
Their vision shunned protectionism and beggar-thy-neighbor currency 
policies, forces that helped catalyze the war, and instead trumpeted 
multilateralism and shared prosperity.
    At the center of that vision, they created the IMF. Since its 
inception, the Fund has well served the world economy, and U.S. 
national security and economic interests--whether it be in helping to 
mitigate economic crises in Latin America in the 1980s, support the 
transition of the ex-Soviet states in the 1990s, combat the Asian and 
emerging market crises of the latter 1990s, provide concessional 
support and debt relief for poverty alleviation in low income 
countries, or tackle the European crisis of the past years.
    Without the IMF, these developments had the potential to rock 
geopolitical stability to a much greater extent, often in countries 
with strategic significance to our national security. Without the IMF, 
these developments also had the potential to spread more virulently 
around the world and seriously harm U.S. growth and jobs through 
decreased export opportunities, lost foreign investment, and financial 
shocks.
    Throughout my career, I have seen first-hand the IMF's strengths. 
Its ability to act as the world's first and rapid crisis responder is 
an unparalleled global public good, as is its excellence in designing 
and supporting country reform programs. The IMF brings together 
officials from around the world, creating a culture of shared 
understanding. It fosters multilateral rules of the road. Its technical 
assistance helps countries build the infrastructure for more robust 
economic policies. The IMF's surveillance can help prevent crises.
    But despite the Fund's strengths, the organization--like any 
other--has room for improvement, for example, in better analyzing and 
articulating policies to tackle modest global growth, addressing global 
rebalancing and exchange rate issues, strengthening its work on crisis 
prevention and debt sustainability, supporting pro-poor spending in low 
income countries, and helping make financial sectors more resilient.
    I believe firmly in tenaciously defending U.S. interests and in 
advancing multilateralism, as well as in working pragmatically and 
collegially, with analytic rigor, and in a non-partisan manner. I also 
believe in the IMF's mission and that our nation's leadership of the 
IMF is critical. Those beliefs have guided my career.
    If confirmed as U.S. Executive Director, I will work vigorously to 
continue to strengthen and improve the IMF, consistent with those 
beliefs. I will dedicate myself to doing my utmost to work with 
Congress to help forge a stronger consensus in our country in support 
of the IMF and its critical global role, and I thank this committee for 
its strong backing of the Fund in securing the recent passage of 
legislation to implement the 2010 quota and governance reforms.
    Again, to have been nominated by the President to represent the 
United States in the IMF--the very institution at the center of 
America's post-WWII global economic and financial vision--is a 
tremendous and humbling honor and a responsibility that I am eager to 
undertake.
    Thank you.


    Senator Cardin. Thank you very much.
    Mr. Sterling?

  STATEMENT OF ADAM H. STERLING, OF VIRGINIA, NOMINATED TO BE 
               AMBASSADOR TO THE SLOVAK REPUBLIC

    Mr. Sterling. Ranking Member Cardin, appearing before you 
as President Obama's nominee to serve as United States 
Ambassador to the Slovak Republic is an honor and privilege. I 
am grateful to the President and Secretary Kerry for the trust 
and confidence they have placed in me.
    Mr. Ranking Member, I bring 26 years of Foreign Service 
experience to this position. For more than 20 of those years, 
my partner in all aspects of this global life has been my wife, 
Veerle Coignez. Veerle works to advance global health as an 
expert consultant to the Global Fund to Combat HIV/AIDS, 
Malaria and TB. Veerle broke away from a mission with the 
Global Fund to fly here yesterday all the way from India.
    Our family diplomatic team includes as well our 17-year-old 
daughter, Elka, and 15-year-old son, Bram. They broke away from 
school in our current home in the Netherlands to fly all the 
way back here from there yesterday. I am exceptionally proud to 
introduce the three of them to you.
    My experience includes leading two U.S. missions overseas 
and work on the Slovak Republic and its neighbors as director 
of Central and Eastern European affairs on the National 
Security Council staff.
    Less than a quarter century after the peaceful dissolution 
of Czechoslovakia, the Slovak Republic has emerged as a trusted 
NATO ally and stalwart member of the transatlantic community. A 
democratic and increasingly prosperous Slovakia serves as a 
powerful example and source of stability in its strategically 
important region.
    The accession of Slovakia and six other countries to the 
NATO alliance in 2004 strengthened our collective security. 
Slovak soldiers have participated in a variety of NATO 
operations, including today in Afghanistan as part of the 
Resolute Support mission.
    Slovakia has also shown a strong willingness to invest in 
its defense capabilities, committing to ramp up defense 
spending from approximately 1 percent of GDP to 1.6 percent by 
2020. Last year's decision to purchase nine U.S.-made Blackhawk 
helicopters is tangible evidence of progress. If confirmed, I 
will seek to build upon this modernization momentum.
    Slovakia has also provided significant support to the 
people of Ukraine by enabling reverse flows of natural gas to 
Ukraine. If confirmed, I will seek even closer bilateral 
cooperation on issues affecting Ukraine.
    One of the newer members of the eurozone, Slovakia has one 
of the fastest growing economies in Europe. Our economic 
partnership also continues to grow with some 140 American 
companies operating in Slovakia, and trade between our two 
countries exceeding $2.5 billion in 2015.
    While economic progress continues, Slovakia still continues 
faces the challenges of fighting corruption and 
institutionalizing the rule of law. If confirmed, I will make 
promoting opportunities for U.S. business and improving 
Slovakia's investment climate one of my top priorities.
    We will also continue to advocate for the rights of 
minorities, for greater inclusion of Roma, and for the human 
rights and dignity of all refugees and migrants, regardless of 
background.
    Mr. Ranking Member, Slovakia shares our democratic values 
as well as our goal of a Europe whole, free, and at peace. If 
given the opportunity, I will do my utmost to advance our 
shared aims. Thank you.
    [The prepared statement of Mr. Sterling follows:]


                  Prepared Statement of Adam Sterling

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, appearing before you as President Obama's nominee to serve 
as United States Ambassador to the Slovak Republic is an honor and a 
privilege. I am grateful to the President and Secretary Kerry for the 
trust and confidence they have placed in me.
    Mr. Chairman, I bring 26 years of Foreign Service experience to 
this position. For more than 20 of those years, my partner in all 
aspects of this global life has been my wife, Veerle Coignez, a native 
of Belgium, whom I am pleased to introduce to you. In addition to 
representing her adopted country abroad with enthusiasm and finesse, 
Veerle works to improve global health as an expert consultant to the 
Global Fund to Fight HIV/AIDS, Tuberculosis, and Malaria. Our family 
diplomatic team includes as well our 17-year-old daughter, Elka, and 
15-year-old son, Bram. I am exceptionally proud to introduce them to 
you as well.
    My experience includes leading two U.S. missions overseas and 
advancing U.S. interests across Europe, Central Asia and the Middle 
East. I am now serving for the second time as charge d'affaires in the 
Netherlands, after serving two periods as charge d'affaires in 
Azerbaijan. My background with the Slovak Republic and the rest of 
Central Europe includes more than two years as Director for Central and 
Eastern European Affairs on the National Security Council staff.
    Less than a quarter century after the peaceful dissolution of 
Czechoslovakia, I am happy to report to you that the Slovak Republic 
has emerged as a trusted NATO ally and stalwart member of the 
transatlantic community. Located in the heart of Central Europe, a 
democratic and increasingly prosperous Slovakia serves as a powerful 
example and source of stability in this strategically important region.
    The accession of Slovakia and six other Central and Eastern 
European countries to the NATO Alliance in 2004 strengthened our 
collective security. Slovak soldiers have participated in a variety of 
NATO operations, including in Iraq and in Afghanistan, where they 
remain today as part of the Resolute Support Mission.
    Slovakia has also shown a strong willingness to invest in its 
defense capabilities, committing to ramp up defense spending from 
approximately 1 percent of GDP to 1.6 percent by 2020. Last year's 
decision to purchase nine U.S.-made Black Hawk helicopters through the 
Foreign Military Sales program is tangible evidence of Slovak progress 
in this area. If confirmed, I will make it a priority to build upon 
this modernization momentum and support Slovakia's transition away from 
legacy military equipment to modern, NATO-interoperable systems needed 
to bolster their capacity to secure NATO's eastern flank.
    Beyond its growing role within NATO, Slovakia has provided 
significant support to the people of Ukraine. By enabling reverse flows 
of natural gas to Ukraine starting in late 2014, Slovakia has helped 
Ukraine get through the winters and gain negotiating leverage with 
Russia over future gas supplies. Slovakia also continues to draw from 
its recent history to advise Ukraine on difficult, but needed reforms. 
If confirmed, I will seek even closer bilateral cooperation on issues 
affecting Ukraine, including maintaining unity on sanctions on Russia 
over its aggression in eastern Ukraine and attempted annexation of 
Crimea, providing support for Ukraine's choice to integrate with 
Europe, and opposing Russia's efforts to cut out Ukraine as a gas 
transit country.
    One of the newer members of the EU and the Eurozone, Slovakia has 
one of the fastest growing economies in Europe. It is not surprising 
that our economic partnership also continues to grow, with some 140 
American companies operating in Slovakia and trade between our two 
countries exceeding $2.5 billion in 2015. While economic progress 
continues, Slovakia, like many former Warsaw Pact countries, continues 
to face the challenges of fighting corruption and institutionalizing 
rule of law. If confirmed, I will make promoting opportunities for U.S. 
business and improving Slovakia's investment climate one of my top 
priorities. This will include support for conclusion in 2016 of a deep 
and comprehensive trade agreement under the U.S.-EU Transatlantic Trade 
and Investment Partnership.
    If confirmed, I will continue our long-standing support to the 
government of Slovakia on judicial reform, where notable progress has 
been made in recent years but where significant work remains to be 
done. We will also continue our vigorous dialogue on human rights and 
advocate for the rights of minorities, for greater inclusion of Roma, 
and for the human rights and dignity of all refugees and migrants, 
regardless of background.
    People-to-people ties between our countries have strengthened with 
Slovakia's greater integration into the transatlantic community. If 
confirmed, I will look for new ways to expand and develop exchange 
programs that build on ties first created by the waves of Slovak 
immigrants who came to the United States over a century ago and helped 
build our country's industry and culture. Slovak-Americans remain today 
a vital element in the U.S. relationship with Slovakia. I will, if 
confirmed, pursue a strong partnership with that community.
    We have several agencies represented at Embassy Bratislava. Besides 
the Department of State, there is the Department of Defense and the 
Department of Commerce, with others like the Department of Homeland 
Security making frequent visits from neighboring Vienna. If confirmed, 
I will manage the Embassy as an efficient, effective and secure 
operation driven by a commitment to advance America's interests.
    Mr. Chairman, distinguished members of the committee, Slovakia 
shares our basic democratic values, as well as our long-term goal of a 
Europe whole, free and at peace. If given the opportunity, I will do my 
utmost to further strengthen and leverage our shared aims. I would 
welcome you to Bratislava to see first-hand our talented Embassy staff, 
who work tirelessly in pursuit of American interests. I thank you again 
for your willingness to consider my nomination and would welcome your 
questions.


    Senator Cardin. Once again, I want to thank all three of 
our nominees for being willing to come forward.
    And to your families who are here, and those who could not 
make it here, we thank you. As I said earlier, we know it is a 
shared sacrifice and we very much appreciate that.
    Chairman Corker was called to another meeting where he had 
to vote. The Banking Committee is having a vote on an important 
position in Treasury dealing with international finance, so 
that is the reason why he is not here.
    As we explained earlier, the seven nominees that are before 
us today have all been well-vetted from the point of view of 
their background and their previous commitments to public 
service. There will be questions asked for the record.
    We have a minute or two. Let me, if I might, Uruguay has 
certainly been one of the leaders in our hemisphere working 
with President Obama to advance human rights issues, meeting 
with President Obama, with the Cuban activists. It seems to me 
there is great promise in that country to see stronger 
leadership in advancing the good governance in our own 
hemisphere.
    I would be interested in your views as to how we can build 
on that bilateral relationship to help so many countries in our 
hemisphere that have significant problems with corruption and 
good governance.
    So let me give you a chance, if I might, to respond, in 
regards to your thoughts there.
    Ms. Keiderling-Franz. Certainly, thank you, Senator Cardin. 
It is very true that Uruguay itself has a long tradition of 
good governance and respect for human rights, and for building 
its own society that is more equal.
    It has for a very long time asked American administrations 
to improve the relations between the U.S. and Cuba, so you will 
not be surprised when it welcomed, of course, the opening of 
embassies in the two countries.
    This is an opportunity I think for us together with Uruguay 
now to use its strong and credible voice when it comes to 
issues of democratic governance and respect for human rights to 
make the push now in Cuba and in places like Venezuela to speak 
out for those who need their human rights respected in those 
countries and elsewhere, where the equal treatment of people is 
not as we would all hope it to be.
    If confirmed, I would hope to work with Uruguay to make the 
case for improved democratic governance and respect for human 
rights, just like Uruguay has at home, as we try to be 
ourselves across the hemisphere.
    Senator Cardin. Thank you. We look forward to working with 
you on that.
    Mr. Sterling, in Slovakia, obviously a close ally of the 
United States, one of our military allies, a lot of things to 
be celebrant about. However, they are not where they should be 
on fighting corruption. They have had serious challenges. Maybe 
expect more from our allies, to show by example.
    How do you see our mission working with the government to 
advance better standards to deal with governance issues?
    Mr. Sterling. Senator Cardin, corruption is, indeed, a 
serious problem in Slovakia, as it is in many other countries 
in the region. The United States has been working with Slovakia 
since it achieved independence in 1993 to build institutions 
that are well-rooted in the rule of law.
    The United States role, as I see it, is twofold. One, it is 
advocacy for good governance, for promoting the message that 
governance matters, both to underlie our bilateral relations 
and the place of Slovakia within the European Union and NATO. 
And second of all, we give technical assistance in a number of 
areas. For example, last year, we provided legal assistance to 
help promulgate a new judicial ethics code. We are now working 
with prosecutors through expert assistance in promulgating a 
new prosecution ethics code.
    All of these are steps in the right direction. But of 
course, the ultimate proof of success is how they are 
implemented. We will follow up to make sure that these new 
standards are met.
    Senator Cardin. There are certainly institutional changes 
that have to be made. But you are correct. It is whether there 
really is a commitment to change some of the longstanding 
problems, and that takes political leadership. But support from 
the United States can make that more of a reality, so we will 
be looking forward to your assessment as to what we can do to 
strengthen that encouragement and our bilateral relationship.
    Mr. Sobel, IMF is a critically important tool for 
international stability, for international development. If it 
does not put a priority on good governance, you can put all of 
the economic resources into a country and it will be wasted. So 
how are you going to exercise leadership to make sure that the 
principles of integrity and anticorruption go into the policies 
at IMF?
    Mr. Sobel. Thank you for the question, Senator. It is a 
good question. I fully agree with the thrust of your remarks.
    The IMF has a macroeconomic and economic reform mandate. 
Economic reforms can provide a critical foundation for 
combating corruption.
    I remember early in my career, I worked on the Soviet Union 
when it collapsed. We found there were all types of price 
controls. That meant that goods for siphoned off to a black 
market. There were poor privatizations where, shall we say, 
business people basically took resources away from the people 
and state.
    So I think that there is much that can be done. There is 
much that can be done in terms of liberalizing prices. There is 
much that can be done in terms of avoiding export quotas and 
like that result in rent-seeking behavior.
    The fund has emphasized issues such as corporate 
governance. There is a prominent case now where Madam Lagarde 
recently spoke about the need to tackle anticorruption far more 
forcefully in Ukraine, which is a critical program, and was 
putting elements on the table, such as disclosure by officials 
of assets, improving corporate governance in state-owned 
enterprises, looking at privatization, strengthening the 
prosecutor general's office and the anticorruption agency.
    So I think that there is much that the fund can do in this 
realm to help combat corruption and strengthen governance. I 
promise you I will work actively to promote those objectives.
    Senator Cardin. I thank you. It is critically important we 
use all of our opportunities, particularly on countries that 
are struggling.
    Ukraine has incredible challenges, and Russia is the 
culprit for its instability today. There is no question about 
that. It is continued interference in the territorial integrity 
and its intimidations of its political system is pretty clear. 
But if Ukraine cannot get its governance in order, it is not 
going to be able to make it.
    IMF can play a role, as can the other tools that we have 
available in our international and bilateral diplomacy toolbox 
that need to be postponed deployed. So I thank you very much 
for your response.
    As we said earlier, we expect there will be questions for 
the record that will be asked to each of you. We ask that you 
would respond to those questions as promptly as possible so 
that we can try to take action on these nominations as quickly 
as possible.
    With that, we will keep the record open until close of 
business on Monday for the purposes of questions to be asked.
    Senator Cardin. With that, the hearing stands adjourned. 
Again, thank you all very much.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


    Responses of Christine Elder, nominated to be Ambassador to the 
    Republic of Liberia, to Questions from Members of the Committee

                 ambassador-designate elder's response 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. A theme throughout my career has been working with 
countries in transition, whether from communism or civil war. 
Democracy, rule of law, and human rights are central to the stability 
and growth of any civil society, and strengthening all three has been 
at the heart of my 25 year career. While the challenges and 
opportunities are unique in each country, human rights and democracy 
are always at the center of U.S. values and how we engage with 
governments and civil society overseas.
    One formative example early in my State Department career was when 
I worked with the University of Dayton to create a lane for civil 
society engagement after the 1995 signing of the eponymous Peace 
Accords. Supporting the efforts of the University-led consortium with 
high-level, official U.S. participation led to several reunion summits 
in Dayton where Balkan leaders took stock of progress. The impact of 
this joint effort was that lasting ties were created between Balkan and 
Ohio communities in business, education, culture, health, and local 
governance, which substantially strengthened the political agreement 
and persist to this day.
    Another example of my work in this area comes from when I served as 
Charge d'Affaires in Maputo, Mozambique. During street riots where 
excessive and deadly force was used by law enforcement to quell unrest, 
as Charge d'Affaires I immediately engaged the Foreign Minister to call 
for restraint, transparency, and public and diplomatic communication. I 
also worked with my diplomatic counterparts to strengthen and 
coordinate our response. The result was a clear understanding that the 
eyes of the world were upon the government, that they owed their 
citizens better, and they would be judged by their response.

    Question. What are the most pressing human rights issues in 
Liberia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Liberia? What do 
you hope to accomplish through these actions?

    Answer. While the government of Liberia generally respects the 
human rights of its citizens, the country is still confronting serious 
human rights challenges, including lengthy pre-trial detentions, a weak 
judiciary, official corruption and impunity, widespread gender-based 
violence, and continued use of child labor in rubber-producing areas of 
the country. There are also some reports of discrimination against 
those on the margins of society based on religious belief or cultural 
practice. For example, victims of human rights abuses, Ebola survivors, 
LGBTI individuals, and persons with disabilities all face stigma or 
some form of harassment in Liberia, such as discrimination against the 
LGBTI community.In addressing these issues, I would--if confirmed--help 
Liberia continue to overcome the legacy of 14 years of civil war, work 
closely with the Liberians to push forward the post-war peace and 
reconciliation process which has been stalled since the civil war, 
rebuild its civil society organizations and government institutions 
central to the protection of human rights, and achieve social and 
political reconciliation.
    I would continue to ensure the U.S. government, through its words 
and deeds, encourages the protection and promotion of human rights in 
Liberia. Currently, our programming in Liberia is wide-ranging and 
collaborative. U.S. Embassy Monrovia is working alongside the 
Government of Liberia as well as local and international 
nongovernmental organizations to improve access to justice, reduce 
discrimination, fight corruption, and provide victims of human rights 
abuses with the necessary resources to fully recover.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Liberia in 
advancing human rights, civil society and democracy in general?

    Answer. A lack of government resources, impunity, and corruption 
pose significant hurdles in strengthening rule of law. Although there 
is the political will in the Government of Liberia to tackle the human 
rights issues previously mentioned, government funding for its own 
human rights institutions, such as the Independent National Commission 
on Human Rights or the National Commission on Disabilities, is 
insufficient. This lack of adequate funding will, unfortunately, 
continue to be a problem since the prospects of Liberia's economy in 
the short-term are limited and high levels of government corruption 
persist. Impunity for abuses of authority, including for corrupt 
practices and for incidents in the security forces, also contributed to 
lack of accountability and weak rule of law.
    If confirmed as Ambassador, I would work alongside our many 
international partners to encourage the Government of Liberia to fight 
corruption at all levels, which should have the added benefit of making 
more efficient use of scarce government funds for other important 
priorities such as strengthening the public institutions critical in 
the protection of human rights.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Liberia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I would meet with a wide range of human 
rights, civil society, and non-governmental organizations, both in the 
United States and in Liberia, that work to promote respect for human 
rights.
    As Ambassador, I would make certain the Embassy continues to follow 
the robust Leahy vetting process to ensure that U.S. security 
assistance and security cooperation activities reinforce respect for 
human rights. In our ongoing security assistance and security 
cooperation dialogue with the Liberian government, the Embassy 
consistently emphasizes that this assistance is contingent upon the 
government, senior officers of the Liberian National Police (LNP) and 
Armed Forces of Liberia (AFL), and individuals within the security 
organizations continuing to uphold applicable human rights standards. 
The government of Liberia is well aware that we are serious about 
ensuring security assistance and cooperation activities reinforce human 
rights, and has periodically asked the Embassy whether individuals 
under consideration for senior leadership positions in the security 
sector would be acceptable under Leahy guidelines, or whether their 
presence would pose an obstacle to cooperation because of Leahy. That 
kind of early and consistent dialogue has been fruitful. As Ambassador, 
I would continue to ensure that provisions of U.S. security assistance 
and security cooperation reinforce human rights.

    Question. Will you and your embassy team actively engage with 
Liberia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Liberia?

    Answer. The Embassy team has excellent relationships with all 
levels of the Government of Liberia that enable us to deliver hard 
messages when warranted, including in the case of a political 
prisoner.Liberia has a lively, free press demonstrated by sometimes 
strong criticisms of the president, her family, and the government. We 
have seen some cases in which the person levelling that criticism has 
been arrested for breaking a law. If confirmed as Ambassador, I would 
engage with the Government of Liberia at an appropriate level to 
highlight the potential impact of any heavy-handed government response. 
I would advocate for speedy consideration of court cases or pursuit of 
alternative dispute resolution measures. In addition, I would engage 
with civil society and the press to underscore our support for, and 
advocacy of, the exercise of freedom of expression. As Ambassador, I 
would maintain and strengthen the relationships we have at all levels 
with the Government of Liberia that enable us to have what are 
sometimes difficult conversations.

    Question. Will you engage with Liberia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed as Ambassador, human rights, good governance, 
and civil society would be central components of my efforts in Liberia. 
For example, as Ambassador, I would press for the Government of Liberia 
to fully implement its Second National Action Plan as a member of the 
Open Government Partnership (OGP). As a global forum where governments 
work closely with civil society, OGP is a natural fit for Liberian 
officials to develop specific, practical commitments to improve 
transparency and good governance. If confirmed, I would ensure the U.S. 
Embassy continues to monitor and promote respect for human rights and 
support Liberia's own efforts to foster a vibrant, democratic civil 
society.

    Question. Ms. Elder, if confirmed, you will be going to Liberia at 
a particularly pivotal time. The United Nations Peacekeeping Mission in 
Liberia is scheduled to drawdown its presence after 13 years. Liberia 
is just now beginning to recover from the devastating effects of Ebola, 
and is slated to have general elections next year in which longtime 
President Ellen Johnson Sirleaf is not eligible to run.
    What, if confirmed, will be your major priorities in a nation that 
stands at such a critical crossroad?

    Answer. If confirmed as Ambassador, beyond serving and protecting 
American citizens, my top policy priorities would be to promote a 
secure, stable Liberia with enhanced rule of law, foster broad-based 
economic development, and stabilize the country's human development 
situation. These priorities will help address the issues raised by 
UNMIL's drawdown, recovery from Ebola, and a pending presidential 
election.
    The U.S. Embassy's International Narcotics and Law Enforcement 
(INL) programs seek to build government capacity to manage its civilian 
security responsibilities professionally while maintaining security 
throughout the country. They also work to strengthen the rule of law by 
building effective justice sector institutions that follow democratic 
norms to improve citizens' access to reliable and impartial justice and 
peaceful dispute resolution. USAID's Access to Justice Activity 
specifically works to improve overall access in counties outside of 
Monrovia. If confirmed, I intend to continue these programs and ensure 
that the improved security and stability in Liberia over the last 
decade continues throughout UNMIL's transition in 2016, and the 2017 
presidential elections.Liberia's high levels of poverty and food 
insecurity will also not decline without sustainable, inclusive 
economic growth. If confirmed, I will continue to leverage USAID 
programs to strengthen health infrastructure, and build Liberia's 
capacity to prepare and respond to potential future threats. I will 
also support programming that focuses on preventing and raising 
awareness of other deadly diseases, such as malaria, as well as 
improving the availability of a qualified healthcare workforce.

    Question. Given the instability that elections can precipitate in 
fragile and recovering countries are you concerned about the full scale 
drawdown of the U.N. Mission this year?

    Answer. Maintaining security and stability through the 2017 
presidential election is an important goal of the United States.
    After several years of phased drawdowns, the U.N. peacekeeping 
mission plans to hand over day-to-day security responsibility to 
Liberian security services by June 30 of this year. UNMIL will reduce 
its strength from 3,590 to 1,240 military and its authorized police 
strength from 1,515 to 606 police personnel. UNMIL residual forces will 
remain at least until the U.N. Security Council's planned review by 
December 15, 2016, of Liberia's capacity to ensure security and 
stability based on conditions on the ground at that time. Only then 
will a decision be made on the possible withdrawal of UNMIL and the 
transition to a future United Nations presence. In the most recent 
elections, in December 2014, UNMIL provided some logistical support to 
the Elections Commission, while Liberia's civilian security agencies 
maintained order.
    As UNMIL draws down and prepares for a potential transition, the 
United States is continuing bilateral efforts to promote the Government 
of Liberia's capability to assume full security responsibility, 
particularly in the lead-up to the upcoming 2017 presidential 
elections. We have bilateral police advisors who focus on developing 
senior Liberia National Police (LNP) leadership to take ownership of 
training, operations, and logistical support as well as the specialized 
units of the LNP, which handle civil unrest and emergency response.
    If confirmed, I pledge to work with the Embassy team and 
international partners to closely monitor Liberia's security capacity, 
especially its ability to maintain security for the elections, and to 
make appropriate recommendations to ensure that the 2017 elections are 
unmarred by security issues.

    Question. What steps will you take, if confirmed, to help ensure 
that elections are peaceful, credible and reflect the will of the 
Liberian people?

    Answer. The 2017 general elections will be a critical juncture for 
Liberia's fragile post-war democracy. It offers the first full, post-
war political transition in Liberia, the first time one president 
constitutionally turns over to another president since 1944. Our 
partnership with Liberia encourages this continued progress in 
democratic governance to help Liberia fully turn the page on its long 
history of suffering. If confirmed, I will continue our programming on 
the ground to provide comprehensive support to the Liberian National 
Elections Commission (NEC), civil society organizations, and media 
outlets in promoting a participatory and fair democratic governance 
environment in the run-up to the 2017 elections.
    We also support the Constitutional Review Committee (CRC) via the 
United Nations Development Program (UNDP). Our support has promoted 
public input into the on-going constitutional reform process, such as 
the National Constitutional Conference held in 2015, which brought 
together delegates from all sectors of Liberian society to provide 
input and to debate potential constitutional referendum provisions.As 
Ambassador, if confirmed, I will also personally engage Liberian 
political leaders, the NEC, civil society and the media in an effort to 
ensure a fair, transparent, and peaceful election. I will also ensure 
that after this election, our assistance to strengthen democratic 
institutions continues apace.

    Question. Corruption is a persistent problem in Liberia. Despite 
leadership, commitment and actions at the highest levels of government 
to rooting it out, it remains endemic, including in the security 
sector. According to Transparency International's Global Corruption 
Barometer, police are viewed as the most corrupt institution in the 
country; 75 percent or more of surveyed Liberian citizens reported 
paying a bribe to police.
    If confirmed, how will you engage the Liberian government on issues 
of corruption? Do you have adequate funding to help build and support 
anti-corruption efforts?

    Answer. The fight against corruption in Liberia has taken major 
steps forward in the past years. The United States and other donors are 
helping the Liberian judicial system build its capacity to prosecute 
cases of corruption, and President Ellen Johnson Sirleaf has, on 
several occasions, taken a public stand against corruption. If 
confirmed, I would continue U.S. government programs to support the 
Liberia Anti-Corruption Commission (LACC) and associated Government of 
Liberia entities in their efforts to investigate, prosecute, and 
convict perpetrators of corruption-related crimes while also supporting 
LACC's mandate to educate the public regarding the fight against 
corruption. The U.S. Embassy's International Narcotics and Law 
Enforcement Affairs (INL) section has a comprehensive law enforcement 
program that is building institutional capacity by mentoring senior 
Liberian National Police and Liberian Drug Enforcement Agency 
officials, training specialized units like the Emergency Response Unit 
and Police Support Unit, and helping the police to put in place 
appropriate financial management systems and manage their logistics 
assets.
    INL will continue to incorporate anti-corruption efforts within its 
law enforcement and justice sector programming as well as explore new 
opportunities to partner more closely with civil society to counter 
corruption. Liberia has also joined the United States in the U.S.-
Africa Partnership on Illicit Finance, launched during the 2014 U.S.-
Africa Leaders Summit; if confirmed as Ambassador, I would work with 
Liberia to realize this partnership's full potential to help Liberia 
stem illicit finance from corruption and other illegal activities so 
that Liberia becomes a more attractive investment destination.

    Question. What role is there for the United States in helping 
address police corruption specifically?

    Answer. Reforming the Liberian justice system and addressing police 
corruption are U.S. priorities. The Bureau of International Narcotics 
and Law Enforcement Affairs' (INL) programs are building government 
capacity to manage its civilian security responsibilities 
professionally while maintaining security throughout the country. They 
also work to strengthen the rule of law by building effective justice 
sector institutions that follow democratic norms to improve citizens' 
access to reliable and impartial justice and peaceful dispute 
resolution.
    Our bilateral police program specifically helps develop senior 
Liberian National Police (LNP) leadership at multiple levels, so they 
can take ownership over LNP training, operations, and logistical 
support. U.S. assistance also focuses on broad reform of the police, 
the criminal justice sector, and the corrections system, while 
providing complementary and immediate efforts to bolster basic skills 
and professionalism capacities through training and equipment. These 
efforts include a bilateral Senior Police Advisor partnering with the 
LNP's Professional Standards Division, which is responsible for 
investigating complaints against police officers. A Police Finance 
Advisor is also helping the police put in place appropriate financial 
management systems and controls to improve accountability and 
transparency. Additional INL programming includes a Logistics Advisor 
helping the police to improve management of its logistics assets.

    Question. UN Security Council Resolution 2116 calls for UNMIL to 
strengthen the Liberia National Police's capabilities to manage 
existing personnel, and improve training programs to expedite the LNP's 
readiness to assume security responsibilities.
    Are any of the U.N.'s activities aimed at countering police 
corruption? What will you do as Ambassador to see that the training 
addresses this?

    Answer. The U.N. has a robust police mentoring, training, and 
advisory program, which includes efforts to counter corruption and 
strengthen professionalization. After June 30, 2016, the U.N. still 
plans to have 606 police officers working closely with the Government 
of Liberia on these efforts. Over the past year, the United States has 
shifted its focus from seconding police officers to the U.N. mission to 
bilateral police support efforts, while continuing close coordination 
with the U.N. police component of UNMIL. The U.S. Embassy is expanding 
current anti-corruption efforts with police training and mentoring as 
well as exploring new opportunities to partner more closely with civil 
society to counter corruption. As Ambassador, if confirmed, I pledge to 
continue the current practice of combining diplomatic pressure with 
technical programmatic assistance. I would also continue the dialogue 
with the U.N. on the centrality of anti-corruption efforts within the 
international community's efforts to reform and support the Liberian 
National Police.

    Question. Liberia is a Tier Two trafficking country according to 
the most recent TIP report. There seems to be a discrepancy between the 
steps the government has been willing to take for trafficking of 
Liberians beyond borders and what they will do to address the problem 
internally. The report indicates that while penalties for the sex and 
labor trafficking of children are appropriate, that the penalties for 
sex and labor trafficking of adults are neither sufficiently stringent, 
nor commensurate with those prescribed for other serious offenses, such 
as rape.
    What more should the United States do to help Liberia address 
trafficking in persons domestically?

    Answer. We commend the government for its work in facilitating the 
repatriation of and providing care for 16 Liberian women subjected to 
forced labor in Lebanon last year. However, the Government of Liberia 
should do more to address trafficking within its borders, particularly 
from rural to urban areas. Internal trafficking is more prevalent than 
transnational trafficking, with the majority of victims of internal 
trafficking being children. If confirmed, I will encourage the 
government to ramp up efforts to identify and investigate internal 
trafficking cases and hold perpetrators to account. Additionally, I 
will also encourage the government to increase its funding and 
resources to the Women and Children Protection Section, which had the 
lead in investigating such crimes. Finally, I will encourage the 
government to implement its five-year Trafficking in Persons National 
Action Plan, launched in March 2014, but which remains only partially 
implemented.
    It is also important that Liberia's Trafficking in Persons Task 
Force, convened by the Minister of Labor, meets regularly and receives 
sufficient funding; it remains without an operating budget. The U.S. 
government and the international donor community continue to provide 
training to Liberian law enforcement on trafficking and support for the 
protection of victims through shelter care and other means; however, 
the Liberian government should take greater ownership in building the 
capacity of its officials to better identify, investigate, and 
prosecute trafficking cases, as well as increase efforts to provide 
enhanced protection and services for victims.

    Question. Will you commit, if confirmed, to working with Liberian 
authorities to see that legal penalties for trafficking are 
appropriate?

    Answer. The 2015 Trafficking in Persons Report states that the 
prescribed penalties for sex and labor trafficking of adults are 
neither sufficiently stringent nor commensurate with those prescribed 
for other serious offenses, such as rape. If confirmed, I will 
encourage the government to prescribe increased penalties for the sex 
and labor trafficking of adults. I will work to ensure the Government 
of Liberia works to meet this minimum standard of the Trafficking 
Victims Protection Act, among other minimum standards.

                               __________

      Responses of R. David Hardin, nominated to be an Assistant 
      Administrator of the United States Agency for International 
        Development, to Questions from Members of the Committee

              administrator-designate hardin's responses 
                    to questions from senator corker

    Question. Since 2010, the USAID Food for Peace office has been 
relying more and more on International Disaster Assistance funds to 
provide emergency food in interventions that are critical to U.S. 
national security. Last year, Food for Peace spent almost a billion 
dollars from ``IDA'' on food, representing almost half of total funds 
spent for emergency food assistance. For example, without IDA, we would 
not be feeding displaced Syrians since U.S. commodities from the Farm 
Bill simply cannot reach them. If confirmed, do you agree to work with 
me and my colleagues to see the Food for Peace program fully reformed 
to meet today's challenges?

    Answer. If confirmed, I look forward to working closely with you 
and your colleagues to ensure that we are able to maximize Food for 
Peace (FFP) program resources for greatest impact and effectiveness 
around the globe. The world is facing unprecedented levels of 
humanitarian need, with approximately 60 million people displaced by 
conflict-the largest amount ever recorded. USAID needs to be flexible, 
adaptive, and creative to meet the demands presented by the growing 
complexity and number of humanitarian crises.
    USAID carefully evaluates each specific country context to 
determine which tool to use based on market and security conditions, 
nutritional impacts, timeliness, etc. Resources provided through the 
International Disaster Account (IDA) account have been absolutely 
critical to USAID's food assistance response in numerous countries, 
including the response in Syria and neighboring refugee-hosting 
countries where the United States is the largest donor of food 
assistance thanks to these funds. I also understand that there are 
times, such as right now in Ethiopia, which is currently suffering from 
food shortages due to the impacts of El Nino, where in-kind assistance 
may be the most appropriate response.
    I believe that the flexibility provided through IDA, along with the 
important but modest changes to the Title II program in the 
Agricultural Act of 2014 (or the ``Farm Bill''), have enabled USAID to 
make important progress in improving the efficiency and flexibility of 
its Food for Peace development and humanitarian programs. If confirmed, 
I will build on our past progress and continue to work towards 
achieving additional flexibility in emergency food assistance as 
outlined in the administration's FY 2017 Budget Request. I am committed 
to ensuring that USAID has the most appropriate tool for each 
circumstance and can best meet the needs of vulnerable populations 
around the globe.

                               __________
              administrator-designate harden's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over nearly two decades, I have led efforts to promote 
democracy, human rights and good governance in some of the most fragile 
states in Central and South Asia and the Middle East. I have advised 
garment workers in Dhaka, Bangladesh; I've met with victims of sex 
trafficking in Mumbai, India; and I have negotiated with the government 
of Nepal on how to reduce its trafficking risks. In Central Asia, I 
have stood face-to-face with local police and Ministry of Interior 
officials who were seeking to close down our civil society partners in 
Almaty, Kazakhstan and in Bishkek, Kyrgyzstan. I have overseen election 
observation efforts in Bangladesh, Iraq and the West Bank.
    For the past decade I have led democracy, human rights, and 
governance programs in Iraq, Libya and the West Bank-implementing 
programming with rigorous oversight. We have seen particular success in 
anti-corruption efforts in health financing in the West Bank and 
expanded access to justice for women and children in Iraq.
    I've also overseen nearly people-to-people activities under 
reconciliation grants between Israelis and Palestinians for over a 
decade. My most searing experiences have been negotiating protection 
space for victims of war in Iraq, Libya, West Bank and Gaza, and 
Israel.
    For nearly two decades, I have advocated for central components of 
our humanitarian assistance, development and foreign policy goals and, 
most importantly, our fundamental values as Americans-and fought to 
change conditions on the ground in direct support of democracy, human 
rights, and good governance.

    Question. What are the most pressing human rights issues today? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in your work at USAID? What do you 
hope to accomplish through these actions?

    Answer. The most pressing human rights issue is closing political 
space in many countries--what Freedom House refers to as the 
``democratic recession.'' Over the last several years, the crackdown on 
civil society and political parties, the passage of restrictive NGO and 
media laws, and the restrictions on foreign funding of democracy and 
human rights groups pose the greatest threat to the advancement of 
human rights globally.
    If confirmed, I would take several important steps to elevate 
further USAID's leadership in addressing this phenomenon. We would 
improve data collection and analysis, expand the reach of programs to 
those who are historically excluded, and closely engage public and 
private sector partners as well as diaspora communities in these 
efforts. If confirmed, I would also advance USAID leadership on 
President Obama's Stand with Civil Society Initiative and lend my voice 
to ongoing efforts to elevate human rights as part of our broader 
mission.
    First, I would work to enhance USAID's ability to anticipate the 
threat of closing space so that the Agency can respond earlier. If 
confirmed, I'd like to do more to combine external analysis and data 
with our own field resources and analysis to identify emerging threats 
and then rapidly mobilize diplomatic and programmatic responses in 
order to reverse or impede crackdowns and restrictive legislation.
    Second, I would support expanding the reach of our programs to 
those historically excluded from the political system, especially 
youth, indigenous communities, the rural poor and women. Not only do 
these citizens have the most to gain from inclusion, they represent new 
constituencies that can be mobilized for broad impact. For example, 
USAID has a robust gender inclusion approach, enshrined in our program 
design and strategic planning process, which has resulted in innovative 
approaches to empowerment of women across development sectors.
    Third, there is an opportunity to seek the support of the private 
sector, diaspora communities and philanthropists for expanding 
political space. USAID is promoting the use of technology for migrants 
and watchdog NGOs to report on unjust labor practices within global 
supply chains in partnership with private sector innovators.
    Finally, if confirmed, I would prioritize using social media to 
communicate our values and reach out to meet people, especially youth, 
where they spend time, where they get their news, and where they form 
their opinions. We have seen the incredible influence social media 
platforms wield, and in order to effectively promote human rights and 
democracy in today's world, we must have a presence in that space.
    If confirmed, I hope to lend my voice to the ongoing effort to 
elevate human rights as part of our broader development mission. This 
includes bringing greater focus to our efforts to end human slavery, to 
counter the threat of atrocities and crimes against humanity, and to 
help societies achieve all of the rights contained in the Universal 
Declaration of Human Rights.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in advancing human 
rights, civil society and democracy in general?

    Answer. A significant obstacle to addressing the increasing number 
of countries with closing spaces is our limited ability to 
fundamentally alter the dynamics driving closing space trends. Much 
broader issues impact this disturbing trend, such as nationalism, 
counterterrorism policies, questioning of Western power model, and 
clashes between economic interests and civic activism. Amidst these 
larger factors, USAID is supporting a number of programs that support, 
defend, and sustain civil society amid a rising tide of global 
restrictions, including programs such as Legal Enabling Environment 
Program, Civil Society Innovation Initiative, The Information Safety 
and Capacity project, Civil Society Organization Sustainability Index.
    Budget constraints, particularly in the Democracy, Rights and 
Governance (DRG) sector, pose additional challenges. For example, in 
the Bureau for Democracy, Conflict, and Humanitarian Assistance (DCHA), 
the Center of Excellence on Democracy, Human Rights and Governance 
(DRG) manages the Human Rights Grants Program (HRGP), which provides 
Missions with resources to respond to urgent or unforeseen challenges. 
Over the past five years, the HRGP has provided approximately $10 
million annually to USAID Missions to address urgent human rights 
challenges. This past year, we received requests that totaled more than 
$40 million, demonstrating both an increase in demand for human rights 
programs and a lack of core democracy, human rights, and governance 
funding for human rights in the majority of Missions. If confirmed, I 
would commit to expanding such creative funding mechanisms, which have 
rewarded innovative successes in a competitive environment.
    USAID has prioritized human rights as a fundamental underpinning of 
our development approach across sectors. USAID's Mission Statement 
emphasizes promoting ``resilient, democratic societies,'' which entails 
promoting free, peaceful, and self-reliant societies with effective and 
legitimate governments. Human rights such as the freedom of life, 
liberty and security of the person, freedom of movement, freedom from 
discrimination, and the right to participate in free elections are 
fundamental to the vision described in the Agency's Mission Statement. 
Helping states to respect, protect and fulfill their obligations will 
remain a key priority for me, if confirmed as Assistant Administrator. 
I will also ensure we continue to integrate human rights in our work by 
promoting civil and political rights in our programming, and countering 
discriminatory practices that hinder countries' development.
    If confirmed, I will work to better evaluate the impact of our 
efforts to improve human rights and democracy. I look forward to 
sharing the best practices of our evaluation work.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs abroad?

    Answer. You have my personal commitment that, if confirmed, I will 
engage regularly with civil society and other non-governmental 
organizations at home and abroad.
    Our engagement with civil society is critical for a number of 
reasons. First, these groups are an invaluable source of information 
and ideas, possessing extensive networks and varied resources that 
advance our common cause to protect human rights and promote democratic 
governance. Second, we must demonstrate our shared commitment to 
getting those under threat the support and protection they need. Civil 
society groups are on the front lines of delivering development 
assistance in dangerous contexts and are constantly identifying new 
solutions to development challenges. Third, engagement with our 
stakeholders improves the quality of USAID programs and our policies 
because as a result of our engagement, policies better reflect the 
reality of those on the front lines.
    As part of President Obama's Stand with Civil Society agenda, USAID 
works in partnership with other governments, the philanthropic 
community, and multilateral institutions, and will continue to focus on 
three lines of effort:


  <diamond> modeling positive engagement between governments and civil 
        society and creating a supportive environment for civil 
        society;

  <diamond> developing new assistance tools and programs, including the 
        civil society ``hubs'' that the President announced last year; 
        and

  <diamond> coordinating bilateral and multilateral diplomatic pressure 
        to push back against restrictions on civil society.


    If confirmed, I am committed to the core elements of the Stand with 
Civil Society agenda, including the commitment to consult with civil 
society as a matter of course.

    Question. Will you engage on matters of human rights, civil rights 
and governance as part of your bilateral diplomacy?

    Answer. If confirmed, I will work to engage on these issues in my 
position as Assistant Administrator. It is my experience that USAID 
programs are most effective when our development assistance is closely 
aligned with our diplomatic efforts.
    Under the President's Stand with Civil Society Agenda, the U.S. 
government leverages both development assistance and diplomatic 
engagement to push back against the most restrictive political 
environments. For example, in Cambodia, our support for civil society 
has resulted in an expansion of citizen activism and media attention on 
key land and environmental issues, and increased the accountability of 
the National Assembly through more public hearings.
    If confirmed, I will take every opportunity to support, echo, and 
enhance key diplomatic messages that respect human rights (including 
civil and political rights) and democratic governance.

    Question. As you know, 2015 was a year of unprecedented 
humanitarian need. In 2015 we saw an increasing number of refugees 
fleeing places like Syria, Iraq, Afghanistan and Kosovo. Prolonged 
violent conflict has resulted in ongoing humanitarian needs in Syria, 
South Sudan, and Yemen. And this year we have also had to respond to 
natural disasters in Nepal, Burma, and Micronesia. My understanding is 
that The Office of U.S. Foreign Disaster Assistance responded to an 
astounding 49 crises in 45 countries.


  <diamond> Do you think this is a brief period of unprecedented 
        humanitarian need, which will ebb, or is this degree of 
        widespread humanitarian need the new global norm?

  <diamond> How should humanitarian needs be prioritized by DCHA when 
        they exceed the resources available?

  <diamond> To what degree are emergency response plans shaped by 
        lessons learned and by data on aid effectiveness? Do you 
        believe the current approach is adequate and sustainable?


    Answer. While I cannot state conclusively whether the world is 
experiencing a new norm for humanitarian assistance given all the 
variables that cause and prolong conflicts, it is clear that the 
current global humanitarian needs will persist in the years to come. 
Today's conflicts are extraordinarily complex in nature, and it will 
take years before normal government services and development programs 
can take root in some of the hardest hit areas of Syria, Yemen, 
Afghanistan, and many other locations in the throes of war. 
Humanitarians are being called on to deliver these essential, life-
saving services; they will have to keep doing so until the situations 
allow other actors to start their work.
    I believe we should prioritize assistance based fundamentally on 
need and on the basis of saving lives and alleviating human suffering. 
USAID funding supports the current and new humanitarian caseloads 
characterized by acute humanitarian needs and high numbers of 
vulnerable people. We prioritize our responses based on humanitarian 
need, which is especially critical when these needs exceed USAID's 
available humanitarian resources. In these instances-when USAID must 
prioritize responses because global funding from others is not filling 
the gap-funding may be reduced for some of our disaster risk reduction 
programs as well as responses to protracted caseloads in countries 
where USAID has responded for years and life-saving needs are being 
met. USAID also uses available data and tools to help inform 
prioritization of need, like the Famine Early Warning Network (FEWS 
NET) which is a critical tool in planning and prioritizing food 
security crisis.
    The Bureau for Democracy, Conflict, and Humanitarian Assistance 
(DCHA) is working diligently to address humanitarian needs globally, 
while also supporting efforts to shrink these needs-especially in 
natural-disaster-prone countries. The Agency's strategic outreach to 
other donors and our support for public-private partnerships helps 
USAID meet the first objective of expanding the funding base. Our 
preparedness, disaster risk reduction, and resilience work serves our 
second objective of shrinking needs.
    As the lead federal coordinator for the US government's 
international disaster response, the Office of U.S. Foreign Disaster 
Assistance (OFDA) also constantly seeks opportunities to improve future 
disaster responses. The After Action Review (AAR) is one method by 
which DCHA/OFDA captures lessons and identifies recommended changes for 
institutional implementation. The AAR process starts with DCHA/OFDA 
gathering lessons from response staff and intra/interagency partners 
through interviews, surveys, and workshops. During this process, OFDA 
develops and validates various recommendations for future responses. 
Through a change control process, recommendations are then incorporated 
into DCHA/OFDA's disaster response systems, policies, and procedures. 
AARs have served as the impetus for the development of some of DCHA/
OFDA's core systems, including the Disaster Assistance Response Team 
and Response Management Team structures, and USAID's Field Operations 
Guide. The AAR process continues to serve DCHA/OFDA's interests as a 
nimble and adaptive organization that continuously captures and applies 
real-time organizational learning.
    Finally, humanitarian aid effectiveness is also a core area for 
DCHA as well as the wider international humanitarian system of the 
United Nations, international and national NGOs, and other donor 
governments. DCHA works closely with think tanks and organizations that 
seek to make humanitarian assistance more effective through data-driven 
studies across the sector, including with the Active Learning Network 
for Accountability and Performance in Humanitarian Action (ALNAP), Cash 
Learning Partnership (CALP), and FEWS NET. These types of engagements 
improve coherence across the broader system, enhance evidence-based 
decision-making for disaster responses, and allow for any necessary 
restructuring across the international humanitarian system. DCHA also 
leads donor engagement through efforts like the Good Humanitarian 
Donorship group, which seeks to improve aid coherence among donors in 
order to also improve effectiveness.

    Question. At a Syria donors conference in London in February, there 
appeared to be some shift in emphasis from immediate humanitarian needs 
to support for longer term needs such as education and job 
opportunities.
    Please discuss the current and planned balance of U.S. humanitarian 
and development aid to Syria. In your view, at what point should the 
U.S. leadership on the Syria response shift from DCHA to other 
development-focused entities within USAID?

    Answer. On February 4, 2016, world leaders from 45 countries 
pledged over $11 billion in aid for Syrian refugees and host countries 
at the ``Supporting Syria and the Region 2016'' conference in London, 
including $5.9 billion for 2016. Germany, the United Kingdom, Kuwait, 
Norway, and the United Nations (UN) hosted the conference and advocated 
a new humanitarian approach that combined financial assistance to 
refugees with the economic development of host countries in an effort 
to help refugees find safe haven closer to home, and identify critical 
steps to ensure protection of civilians in Syria. Secretary Kerry 
announced the U.S. pledge of $601 million for humanitarian assistance 
and more than $290 million in education funding. The U.S. Government 
remains the largest single donor of humanitarian assistance to Syria 
and the region, having contributed over $5.1 billion since the 
beginning of the crisis. At the conference, the participants 
acknowledged the urgency of the refugee crisis and discussed ways to 
ensure parties to the conflict abide by the U.N. Security Council 
Resolutions calling for protection of civilians and increasing 
humanitarian access in Syria.
    The Syrian conflict continues to be the largest and most complex 
humanitarian emergency of our time, driving record levels of 
displacement. One in five people displaced globally is Syrian. An 
estimated 13.5 million people in Syria are in need of humanitarian 
assistance. According to the UN, the number of people in need of 
assistance in Syria has increased, as has the level of need in many 
categories. To address these needs, the U.N. has requested over $9 
billion in humanitarian assistance to Syria and the region in 2016, an 
increase over the U.N. 2015 request. The U.S. Government remains 
committed to responding to the urgent humanitarian needs of the Syrian 
people and communities hosting them. Given the current insecurity and 
severe humanitarian needs, the Office of U.S. Foreign Disaster 
Assistance and the Office of Food for Peace continue to lead in 
responding to the Syria humanitarian crisis.
    Separate from humanitarian assistance, USAID, through the Office of 
Transition Initiatives and the Middle East Bureau, is supporting 
moderate opposition communities to ensure they have a role to play in 
the future of Syria. This includes supporting livelihoods, public 
services, governance, and other activities to extend the relevance and 
visibility of moderates. To date, USAID has provided more than $160 
million in non-humanitarian assistance programming to Syria. This type 
of programming could assume a larger role as opportunities to support a 
transition emerge.

    Question. Some analysts have suggested that the location of DRG 
within DCHA puts democracy programs at a disadvantage, because they 
must constantly compete with humanitarian emergencies for attention and 
resources.


  <diamond> Do you think DCHA is the appropriate organization for 
        democracy promotion?

  <diamond> How would you prioritize democracy promotion activities in 
        the context of programs aimed at stabilizing economies and 
        ensuring access to food and basic services?



    Answer. As I mentioned in my opening statement, the crises we face 
today are in large part a result of failed governance and undemocratic 
institutions. The placement of the Center of Excellence on Democracy, 
Human Rights, and Governance (DRG) within the Bureau for Democracy, 
Conflict and Humanitarian Assistance (DCHA) ensures that USAID has a 
single bureau with all the critical capabilities required to respond to 
fragile and failing states--from first response and transition 
assistance to the long-term institutional reforms needed to rebuild 
societies emerging from conflict.
    Through crisis coordination teams and other internal coordination 
mechanisms, we have been able to ensure that DCHA's urgent and long-
term democracy, human rights, and governance investments are 
coordinated to maximize impact. As humanitarian crises increasingly are 
driven by state fragility and conflict, we must integrate longer-term 
democracy and peacebuilding investments with our shorter-term 
humanitarian responses to lay the groundwork for quicker post-conflict 
recovery. Studies by partners such as Mercy Corps have shown that 
community-level governance investments can support broader economic 
development and food security outcomes and enhance post-conflict 
recovery.
    In complex emergencies, we prioritize humanitarian response, but we 
also find that peace-building and statebuilding are often underway even 
in moments of crisis. In terms of prioritizing democracy promotion in 
the context of fragile and failed states, the Agency was an early and 
enthusiastic supporter of the New Deal for Engagement in Fragile States 
where these countries themselves identified five peacebuilding and 
state-building goals: (i) legitimate politics; (ii) economic 
foundations; (iii) justice; (iv) security; and (v) effective delivery 
of goods and services.

    Question. Please discuss any lessons learned by DCHA in recent 
years with respect to democracy promotion, particularly regarding the 
opportunities created during the ``Arab Spring.''

  <diamond> Are certain types of activities consistently more 
        successful than others? Do the challenges of quantifying 
        progress in democracy and good governance make it harder to 
        promote these programs in a USAID environment increasingly 
        focused on performance data?

    Answer. DCHA has learned a number of lessons over the years with 
respect to democracy promotion, particularly with regard to the ``Arab 
Spring.''


  <diamond> Chief among those lessons is the recognition that this is 
        not a short-term effort or one without risks and trade-offs. 
        USAID must maintain a long view in recognition that real, long-
        term stability will not come to the Middle East North Africa 
        (MENA) region until there is significant democratic reform, 
        including meaningful participation and inclusion for all 
        citizens.

  <diamond> It is critical that we invest in supporting democratic 
        actors and the voices of those with an interest in peaceful 
        transitions and productive reform. That means supporting women 
        and youth, who collectively make up 80 percent of the 
        population in many MENA countries.

  <diamond> Tunisia, the birthplace of the Arab Spring, is considered 
        its primary success story. USAID's early, critical support for 
        constituent assembly elections paved the way for an elected 
        government. We have also begun to see progress in private 
        sector development, which has generated youth employment.

  <diamond> In other countries, democratic gains have proved elusive, 
        as transitions from authoritarian rule have given way to 
        volatility and unrest, and in some cases civil war. These 
        outcomes have necessitated that USAID adjust programs to focus 
        on shorter-term outcomes such as conflict mitigation and 
        stabilization.

  <diamond> We need to also bear in mind the limits of USG programs and 
        influence to sustain transformational democratic change in a 
        society. Even with the support of all the world's leading 
        democratic nations and the international community--real and 
        lasting democratic change needs to take root from within. USAID 
        can nurture those opportunities, but the drivers must be 
        indigenous.
Some democracy promotion activities that have proven to be more 
        successful include:
  <diamond> Empowering local level/municipal governance structures to 
        improve service delivery, while being more transparent and 
        accessible to their constituents.

  <diamond> Strengthening civil society, as it often fills an important 
        space in terms of local governance and service delivery when 
        central power structures are collapsing or weak, particularly 
        in conflict-affected areas.

  <diamond> In prioritizing activities, USAID has found that it is most 
        effective to focus efforts on two or three core challenges, 
        rather than attempting to address all issues individually as 
        they arise. The Agency also cultivates and leverages 
        partnerships with governments, civil society, the private 
        sector, and other international donors, where possible.
Quantifying results
  <diamond> USAID's Center of Excellence on Democracy, Human Rights and 
        Governance (DRG) has formulated a comprehensive Learning Agenda 
        that applies a strategic approach to evidence-based research in 
        priority areas. To implement the agenda, the DRG Center has 
        strengthened the capacity of officers in headquarters and the 
        field to engage in more rigorous learning. The Center has 
        trained hundreds of USAID staff and partners as well as hosted 
        three state-of-the-art Learning Clinics that incorporate 
        training sessions alongside real-time evaluation design.

  <diamond> While there are nuances to quantifying democracy and good 
        governance, we have demonstrated that effective measurement and 
        evaluation can be conducted in the DRG field. In total, the DRG 
        Center has provided technical assistance for 22 performance 
        evaluations, five high-quality public opinion surveys to inform 
        project design, 13 research grants to advance knowledge in key 
        areas, and 26 impact evaluations completed, underway or in 
        design. These impact evaluations range in scope from assessing 
        to what extent different civic education approaches increase 
        student knowledge and participation, to assessing how increased 
        information on parliamentary performance affects legislative 
        output and voter behavior.

  <diamond> Within this agenda, USAID intends to organize and 
        disseminate existing or new evidence, and produce conclusions 
        and recommendations through academic research, program 
        evaluations, and multi-method tests of the assumptions and 
        theories of change that guide DRG programming.

  <diamond> We believe that progress in both quantitative and 
        qualitative evaluations in the DRG sector supports rather than 
        impedes effective, evidence-based programming.

    Question. The administration's FY 2017 budget requests $2.72 
billion to be allocated to democracy and governance assistance, an 18% 
increase over FY2016, but does not specify which programs or accounts 
should be expanded.


  <diamond> If Congress funds an increase, where do you believe the 
        additional funds would be best spent within the democracy and 
        governance portfolio?

    Answer. If confirmed, I would continue to work with my colleagues 
in the regional bureaus and the Agency's budget team to take a closer 
look at bilateral programs based on where assistance is in greatest 
need, where it can be most effective, and where it best serves our 
foreign policy. The President's FY 2017 budget request proposes 
increased funding across all Governing Justly and Democratically 
program areas, with the biggest increases going to programs that 
strengthen civil society and improve good governance.
    The FY 2017 request broadly supports three U.S. Government policy 
goals: addressing democratic backsliding and closing political spaces 
by promoting government accountability, citizen participation, and 
protecting fundamental human rights; supporting democratic political 
transitions where U.S. foreign assistance can make an impact; and 
sustaining our overall aid investments in countries that are making 
progress.
    In terms of allocation within or between DRG programs in a given 
country, this would be driven by the local context, including an 
analysis of host country priorities, capacity and political will, 
programming from other donors, and U.S. foreign policy priorities. In 
some cases, regional or cross-border programs may be considered as a 
more effective approach if a problem is transnational in nature.

    Question. Last week USAID deployed a Disaster Assistance Response 
Team (DART) to lead the U.S. Government response to the drought in 
Ethiopia, which includes the provision of emergency food assistance, 
drought resistant seeds to plant new crops, safe drinking water, and 
nutrition treatments. But USAID's Feed the Future program has been in 
Ethiopia for years working on long term agricultural production and 
nutrition projects.


  <diamond> Please discuss the balance between our immediate emergency 
        food aid needs with our activities to foster long term 
        agricultural development. Do you think we have struck the right 
        balance between the two?

  <diamond> As you know, investing in long-term stability ultimately 
        reduces the need for emergency food aid. If we forget about the 
        balance between the two for a moment-do you think we are 
        channeling sufficient resources towards the development side?


    Answer. Ethiopia is experiencing an extraordinary drought--the 
worst drought in fifty years. Triggered by El Nino, the drought follows 
successive poor rainy seasons and the scale and severity now exceeds 
many people's ability to cope. Many of the areas affected by this 
drought are densely populated and not chronically affected by drought 
in average years. Conditions are expected to worsen in the summer 
months. An estimated 10.2 million people are in need of relief food 
assistance-a number that is expected to increase. Another 8 million 
people are chronically food insecure.
    USAID is working to help address urgent needs, sustain the 
development progress made, and reduce the risk of undermining longer-
term food security gains through a combination of joint humanitarian 
and development action. In the immediate term, USAID is acting quickly, 
decisively and at-scale through an integrated response to help mitigate 
the humanitarian, development and economic impact of the drought and 
speed recovery once drought conditions subside. In the medium-to-long 
term, staying the course means sustaining our resilience and 
development investments in Ethiopia to continue to help accelerate the 
country's upward development trajectory and further enhance `the 
ability of people, households, communities and systems to mitigate, 
adapt to and recovery from shocks and stresses in a manner that reduces 
chronic vulnerability and facilitates inclusive growth'-USAID's 
definition of resilience.
    The U.S. Government began responding early to the impacts of the 
drought in mid-2015 through modifying existing development programs and 
through rapid response programs that were standing at the ready when 
early warnings, including the USAID-supported Famine Early Warning 
Systems Network (FEWSNET), projected worsening food security and water 
situations. When the outlook indicated increased food insecurity, 
USAID/Food for Peace (USAID/FFP) began shipping more than 28,000 metric 
tons of relief food assistance to Ethiopia valued at nearly $24 million 
between July and September 2015. Since October 2015, USAID/FFP provided 
nearly 447,000 metric tons of relief food assistance in Ethiopia, 
valued at over $267 million, more than double the tonnage provided 
during all of last fiscal year.
    At the same time, USAID is working with partners to prepare for the 
upcoming rains and summer planting season, which typically feeds 85 
percent of Ethiopia's population. By getting seeds into the hands of 
more than 1.7 million farmers, USAID is helping them plant before the 
rains fall, in hopes of alleviating some of the food needs in the 
future. The USAID seed intervention is an integrated response between 
the humanitarian and development offices that provides emergency seed 
needs in close coordination with the long-term agriculture development 
programs.
    The balance between emergency assistance and long-term agricultural 
development is complex, but USAID is making progress toward improving 
the population's resilience. The development and resilience gains in 
Ethiopia have saved and sustained lives in a cost-effective manner. The 
difference between this drought and severe droughts of the past--such 
as the 1984 drought--is the development investments. Despite drought 
conditions being worse than 1984, and high population growth, the loss 
of life is drastically lower. With support from USAID, Ethiopia has 
worked to build safety nets for their people, invested in agricultural 
development, and enhanced their resilience to recurrent droughts. This 
progress is helping Ethiopia respond to emergency needs and protect 
lives and livelihoods, while safeguarding against the loss of critical 
development gains from routine shocks. Some shocks overwhelm even the 
most advanced emergency response and safety net systems, and Ethiopia's 
current drought is such an example.
    Programs under Feed the Future (FtF), the U.S. Government's global 
food security and hunger initiative, have laid a strong resilience 
foundation for areas chronically affected by drought, in part by 
utilizing a multi-sectoral approach through climate smart agriculture, 
livestock production, and natural resource management. FtF programs in 
Ethiopia are helping farmers by promoting ``best agricultural 
practices'' that sustainably increase agricultural and livestock 
productivity as well as farmer incomes. FtF has introduced high 
producing crop varieties that respond better to droughts, flooding, and 
other stresses; extended improved crop, soil, and water management 
practices; promoted energy-efficient agricultural technologies; and 
advocated for innovative practices and policies so that smallholder 
farmers can cope with adverse conditions.
    FtF investments in livelihoods have integrated USAID/FFP-supported 
development food assistance and agricultural productivity activities. 
For example, USAID/FFP supports the Government of Ethiopia-led 
Productive Safety Net Program (PSNP), which annually addresses the 
basic food needs of 5-8 million chronically food insecure people 
through the seasonal transfer of food and cash resources in exchange 
for work on natural resource management projects, like terracing and 
irrigation systems, that generate economic benefit to the community as 
a whole. The PSNP has lifted 1.5 million people out of poverty, reduced 
the annual household food gap, improved the land productivity, and 
helped people protect their assets during times of stress. In the 
drought-affected highlands, USAID/FFP's investment in the PSNP is 
complemented by FtF investments in the Graduation for Resilience to 
Achieve Sustained Development (GRAD) program aimed at assisting poor, 
rural households currently enrolled in the PSNP to achieve self-
sufficiency and `graduate' from food assistance. The GRAD program has 
successfully helped around 200,000 people graduate to date and 
increased annual incomes among GRAD beneficiaries by approximately 
$330.
    USAID must continue to strengthen the population's ability to cope 
through long-term FtF investments. While the current drought may result 
in temporary setbacks, Ethiopia has experienced robust, agriculture-led 
growth over the past decade. This is exemplified by the 10.3 percent 
GDP growth rate in 2014. Ethiopia also achieved a 33 percent decline in 
poverty between 2000 and 2011. FtF is helping to accelerate this 
progress in partnership with the Government of Ethiopia's Agricultural 
Growth Program and Growth and Transformation Plan.
    This progress is matched by steady improvements in health, 
nutrition and human capital supported and accelerated by FtF and 
USAID's Global Health initiatives. The prevalence of chronic 
malnutrition (stunting) was reduced from 57 percent to 44 percent over 
the last decade and the under-five mortality more than halved from 146 
to 68 per 1,000 live births during the same period. As capacity is 
built, USAID remains committed to respond to extraordinary events--like 
the current El Nino-induced drought--to save lives, reduce suffering 
and to mitigate the economic and social impacts of disaster.
    The climatic irregularities in East Africa are increasing in 
frequency and our development and resilience investments are making a 
substantial difference. However, effectively responding to these new 
environmental realities will require sustained development investments 
over time, focused on enhancing the growing population's ability to 
cope.

    Question. The United States is the largest donor of food 
assistance.


  <diamond> Please discuss the role of other donors and the challenges 
        of burden sharing, particularly any efforts to include emerging 
        donor contributions.

    Answer. The United States has a proud 60-year history of providing 
hope and help to over three billion people across the globe. Currently, 
the world is facing unprecedented levels of humanitarian need, with 
approximately 60 million people displaced by conflict-the largest 
amount ever recorded. International humanitarian organizations are in 
dire need of increased support from as many donors as possible. If 
confirmed, I plan to continue USAID efforts to coordinate with other 
donors on large-scale responses to ensure interventions are 
appropriate, targeted, and well supported.
    Over the past five years, in addition to the United States, the 
United Kingdom, Canada, the European Commission and Germany were 
significant donors to the U.N. World Food Program (WFP), the largest 
multilateral humanitarian agency fighting hunger worldwide. It is my 
understanding that in February, Germany provided an unprecedented 
contribution of over $600 million to WFP's emergency operation in 
Syria--the largest single contribution in WFP's history. Prior to this 
the United States had contributed more than all other donors combined 
to this effort and so greatly welcomed this increased support from 
Germany. Emerging donors such as Saudi Arabia and Kuwait have also 
increasingly stepped up their efforts, with Saudi Arabia providing over 
$500 million to WFP in 2014 to respond to food insecurity among 
conflict-affected populations in Iraq.
    In light of the number of emergencies currently being faced by the 
international community, including the current challenges associated 
with El Nino, burden sharing must be a priority in order to ensure we 
are meeting the needs of our world's most vulnerable populations. The 
United States cannot meet global humanitarian needs alone. If 
confirmed, I look forward to actively engaging both traditional and 
non-traditional donors to increase their contributions in order to 
collectively contribute to effective global humanitarian response 
efforts.

    Question. What is your sense of how well the different offices 
within DCHA are coordinated? Please explain how they coordinate their 
activities.

    Answer. The Bureau for Democracy, Conflict, and Humanitarian 
Assistance (DCHA) systematically coordinates its nine offices within 
the bureau, other USAID bureaus, and the interagency. For efforts that 
require significant coordination across the bureau (but do not require 
an agency-wide task force), DCHA has created crisis coordination teams 
to manage its effectiveness. These teams are called Crisis and 
(Political) Opening Action Coordination Teams (COACTs). COACTs help 
eliminate duplication of efforts, achieve efficient use of resources 
and ensure strong coordination among DCHA offices and programs--in 
responding to and addressing crises and political openings. COACTs are 
established for specific crisis or political openings, such as in 
advance of the recent elections in Burma or the outbreak of conflict in 
the Central African Republic.
    COACTs integrate DCHA's work with regional and other pillar bureaus 
by including other bureau personnel on the teams. COACT advisors ensure 
that Bureau and Agency leadership are briefed regularly on fast moving 
developments and are equipped to strategically guide resource 
allocation, programming, and policy decisions. COACTs also ensure 
effective coordination and information exchange with the National 
Security Council, Department of State, Department of Defense, relevant 
embassies, and other agencies.
    The COACT does not supersede the authorities of Missions, Response 
Management Teams, Disaster Assistance Response Teams or offices as 
outlined in USAID agency policies.

    Question. USAID's Office of American Schools and Hospitals Abroad 
(ASHA) is an important component of our foreign assistance and 
international diplomacy efforts. As you noted in your testimony, ASHA 
supports medical and educational facilities that ``provide world-class 
services and promote American ideas and values.'' In FY15, ASHA awarded 
38 grants totaling $23 million to US institutions operating in 25 
different countries. Awards ranged from $173,000 to $1.2 million and 
targeted institutions in Africa, Asia, Latin and Central America, the 
Middle East and North Africa and Europe and Eurasia. The President's 
FY17 budget requests $5 million for ASHA. This represents a nearly 81 
percent decrease from the FY16 enacted level of $26 million and a 78 
percent decrease from the FY15 enacted level of $23 million.


  <diamond> How do you view ASHA's role within the Bureau for 
        Democracy, Conflict and Humanitarian Assistance?

  <diamond> With a proposed 81 percent decrease in funding, please 
        discuss how ASHA will continue to promote American ideas and 
        values in a meaningful way.

  <diamond> How would ASHA prioritize projects and regions with such 
        limited resources? Would ASHA be able to maintain its 
        geographical diversity?

  <diamond> ASHA's investments have enabled us to sustain long-term 
        public-private partnerships dedicated to advancing U.S. values 
        abroad. What impact would a reduced budget have on ASHA's 
        ability to protect and sustain past investments?


    Answer. USAID/ASHA is an integral part of the Democracy, Conflict 
and Humanitarian Assistance (DCHA) Bureau portfolio and complements the 
Agency's humanitarian, transition and resilience work. USAID/ASHA 
supports educational and medical institutions that expand access to 
quality education and health services and have educated successive 
generations of global citizens and leaders, deepening their 
understanding of American ideas and practices. The program is 
strategically positioned to ensure stability in uncertain times; 
promote American ideas and values in meaningful ways by providing 
critically needed advanced medical and trauma care; deliver American 
style education to the most marginalized populations; and ensure 
talented young people have a constructive track to realize their future 
aspirations.
    In my current capacity as the Mission Director in the West Bank and 
Gaza, I have witnessed first-hand the valuable impact of ASHA funding 
to both the Israelis and Palestinians. This funding and out 
relationship to partner institutions make us a stronger, better and 
more efficient Mission. Additionally, these institutions reflect 
American values and serve as drivers of stability, security, and 
prosperity in the region.
    The funding included in the FY 2017 request, combined with the 
significant resources appropriated in FY 2016, will help to meet the 
goals of the USAID/ASHA program. The funding request reflects difficult 
tradeoffs in this constrained fiscal environment, but will allow USAID/
ASHA to continue to contribute to U.S. foreign policy and public 
diplomacy objectives by fostering strong civil society institutions and 
excellence in higher education and innovation.
    USAID/ASHA partners are legitimate, self-sustaining local 
organizations with historic linkages to the United States. Projects are 
chosen through a competitive grant process on the basis of program 
design, potential for impact, and technical merit. This criteria 
enables the Agency to strategically select ASHA partners in a fiscally 
constrained budget environment. ASHA does not select projects based on 
geographical region and does not anticipate a change in funding 
criteria that would impact geographic diversity.
    Over the course of 60 years, USAID/ASHA has awarded nearly $1 
billion to 300 institutions in 80 countries. Although the loss of 
USAID/ASHA grant funds may impact institutions that use ASHA grants for 
capital inputs to expand and improve programs, these organizations are 
not dependent on ASHA funding for continued operations.

                               __________

   Responses of Elizabeth Richard, Nominated to be Ambassador to the 
     Lebanese Republic, to Questions from Members of the Committee

               ambassador-designate richard's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights around the world has been an 
important part of all of my assignments over my 30-year career in the 
Foreign Service. As Deputy to the Ambassador for War Crimes Issues, I 
helped oversee our worldwide efforts to hold war criminals accountable 
for their actions. In setting up the Special Court for Sierra Leone, in 
improving the functioning of the International Criminal Tribunal for 
the Former Yugoslavia, and in advancing U.S. support for justice in 
Darfur, I was part of a team dedicated to the protection of human 
rights. As the director of counter-narcotics, civilian police training 
and rule of law programs in Afghanistan, I ensured that all our efforts 
underscored that peace and stability could only come through democratic 
governance and the protection of every citizen's basic human rights. 
And in Yemen, at the start of the Arab Spring, the determined efforts 
of our entire U.S. Embassy team helped to peacefully end the autocratic 
reign of Ali Abdullah Saleh, support new elections, and ensure that the 
ensuing National Dialogue Conference included representatives of all 
constituencies: women, youth, and minorities. While the country has 
tragically slipped into armed conflict, a precedent for democratic 
governance that gives voice to all segments of the population has been 
set.

    Question. What are the most pressing human rights issues in 
Lebanon? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Lebanon? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Lebanon include 
upholding the rights of refugees, improving prison conditions, 
preserving space for civil society to be active, preserving religious 
freedoms in areas threatened by extremist groups such as ISIL, 
enhancing anti-trafficking efforts, raising the profile of domestic 
abuse (particularly against women) as a human rights issue, and 
preserving the right of organized labor to advocate for wages and 
better occupational health and safety standards. If confirmed, I will 
make the promotion of human rights in Lebanon one of my highest 
priorities. U.S. leadership on this important issue is key to advancing 
nearly every aspect of our bilateral relationship, including the fight 
against ISIL and other extremist groups. If confirmed, I will work 
closely with key Lebanese leaders, including the heads of the main 
security services and ministers with oversight responsibilities, in 
order to highlight alleged human rights abuses and press for prompt and 
transparent government investigations. The State Department's annual 
Human Rights Report regularly garners press attention in Lebanon and is 
studied carefully by NGOs and other groups working on human rights 
issues in Lebanon and remains one of our most effective tools in 
highlighting human rights issues around the world.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Lebanon in 
advancing human rights, civil society and democracy in general?

    Answer. The lack of a fully functioning government in Beirut is one 
of the biggest obstacles, if not the biggest obstacle, to pressing 
forward on our human rights agenda in Lebanon. This means key 
legislation on issues ranging from trafficking to domestic abuse cannot 
be passed promptly into law. The influence of Hizballah in Lebanon, a 
terrorist organization, is another major obstacle to promoting human 
rights in every area of Lebanon. If confirmed, promoting human rights 
throughout Lebanon will be one of my highest priorities.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Lebanon? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to continuing my predecessors' 
tradition of meeting with human rights advocates, civil society and 
other non-governmental organizations in the United States and with 
human rights NGOs in Lebanon. Lebanon is home to a large community of 
very active NGOs devoted to human rights issues. Our Embassy in Beirut 
constantly engages with local NGO leaders to learn about alleged human 
rights abuses and hear their views on how the United States can be even 
more effective in promoting our human rights agenda in Lebanon. If 
confirmed, I will continue our strong compliance with the Leahy Law, 
including maintaining robust vetting procedures.

    Question. Will you and your embassy team actively engage with 
Lebanon to address cases of key political prisoners or persons 
otherwise unjustly targeted by Lebanon?

    Answer. If confirmed, I will actively engage with Lebanese leaders 
on cases involving political prisoners and/or other unjustly detained 
people.

    Question. Will you engage with Lebanon on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will make promoting human and civil rights 
and governance one of my highest priorities. In addition to promoting 
human rights for its own sake, encouraging Lebanon to uphold its 
commitments on human rights underpins nearly every pillar of our 
bilateral relationship, from working with the Lebanese Armed Forces to 
combating ISIL and other extremist groups to providing assistance to 
Syrian refugees and the Lebanese communities that host them.

    Question. What are the issues at play preventing Lebanese 
politicians from agreeing on a President or holding elections? As 
Ambassador, how will you work with the Lebanese officials to address 
these issues and end the deadlock?

    Answer. We share your concern that Lebanon has been without a 
president for nearly two years. Lebanese parties that are blocking the 
formation of a parliamentary quorum are undercutting Lebanon's 
stability and democratic practices, and must be held to account. The 
country deserves a functioning government that can meet the needs of 
the people. If confirmed, I will continue to urge the Lebanese 
Parliament to convene and hold a vote on the President, in accordance 
with Lebanon's constitution and National Pact.

    Question. What are the greatest needs facing Syrian refugees in 
Lebanon now and what Lebanese institutions are facing the greatest 
strain from the influx of refugees? As Ambassador, how will you work 
with the Lebanese government and NGO community to coordinate assistance 
in a way that best serves both Syrian refugees and the Lebanese 
communities that are hosting them?

    Answer. Lebanon hosts more than one million registered Syrian 
refugees, making it the country with the highest per capita 
concentration of refugees in the world. In addition, there may be up to 
another 500,000 non-registered Syrians, along with large pre-existing 
Palestinian and Iraqi refugee populations.
    The influx of refugees has presented severe challenges to Lebanon's 
already weak public infrastructure and services, including overcrowded 
schools, dilapidated water and wastewater systems, and limited health 
clinics. Refugees live in Lebanese communities across the country, the 
majority in rented or previously unoccupied accommodations, including 
sheds, garages and other substandard housing. As the number of refugees 
has grown, social tensions--especially in host communities--have also 
increased. Politicians across the political spectrum have voiced 
concerns about the destabilizing effects and the economic cost of 
hosting such a large number of refugees.
    If confirmed as Ambassador, I will advocate for continued U.S. 
support for the urgent needs of refugees and the communities that host 
them. Thanks to the generous support of Congress, we are providing U.S. 
humanitarian assistance through U.N. agencies and NGOs for urgently 
needed food, shelter, water, health care, education, and protection for 
refugees. If confirmed, I will continue addressing the extraordinary 
needs in Lebanese communities by working on private sector job 
creation, education, and water and wastewater services.
    We encourage the Lebanese government to follow through on its 
commitments to expand legal residency for Syrian refugees and allow 
access to education and work opportunities for both Syrian refugees and 
vulnerable Lebanese, with the support of international donors. These 
commitments were announced at the February 4 London ``Supporting Syria 
and the Region'' Conference. Expanding education and work opportunities 
to refugees is also a central goal of the President's Summit on 
Refugees that he will host on the margins of the U.N. General Assembly 
in September.

    Question. How will you work with both the administration and the 
Lebanese government to ensure that both the Lebanese Armed Forces and 
the Internal Security Forces have the tools they need to protect 
Lebanon?

    Answer. Our Embassy in Beirut meets regularly with LAF and ISF 
partners to assess and address their foreign assistance needs. Our 
support for the Lebanese military is critical to combatting ISIL and 
other extremists that threaten the region, and U.S. interests in the 
region. It is also a key institution of Lebanese statehood and 
essential to extending the Lebanese state's authority throughout the 
country's territory. The Lebanese people, across sectarian lines and in 
numerous polls, regard the Lebanese Armed Forces as the one of the most 
credible and effective institutions of the state and want it to assume 
full responsibility for protection of the state. We must also continue 
our efforts to prepare Lebanon's national police, the Internal Security 
Forces (ISF), to fulfill their mandate to help build safe, secure 
communities and extend the rule of law to each of them. Without a 
strong ISF and LAF, Lebanon's existence as an independent and 
democratic state will be jeopardized, increasing the risk of 
instability in Lebanon and the region. That is a risk we cannot afford 
to take.
    In supporting the ISF, the State Department considers all training 
and equipment requests through the lens of U.S. Department of State 
policies, priorities, funding levels, and the ISF's needs. The State 
Department has been responsive to ISF needs, while encouraging 
sustainable programming. We work closely with the ISF and other 
international donors to support the ISF's strategic planning process, 
as well as to provide training to the ISF and other Government of 
Lebanon partners on long-term planning, end use monitoring, internal 
inspections, and assessments so the ISF can both marshal its own 
resources and maximize foreign assistance.

                               __________
               ambassador-designate richard's responses 
                    to questions from senator perdue

    Question. Please briefly describe your vision for taking on a new 
role as the U.S. Ambassador to Lebanon.

    Answer. The Middle East is undergoing a period of unprecedented 
instability. The roots of this instability are deep and systemic: weak 
political legitimacy, ineffective institutions, fragile economies, and 
religious sectarianism. This volatile landscape poses serious threats 
to U.S. national security and to the security and stability of our 
friends and allies in the region. If confirmed, my role as ambassador 
will be to lead our embassy's team to advance U.S. interests in 
Lebanon. Functioning democratic government, strong institutions, 
including security institutions, and an economic and business 
environment that is tied to the global economy are all required for 
Lebanon's stability and success. If confirmed, I will work to improve 
Lebanon's position in these core areas.
    Additionally, the safety and security all Americans in Lebanon, as 
well as our Locally Employed Staff, is my highest priority. I will draw 
from insights I have gained during 30 years in the Foreign Service, 
including service in some our most challenging posts overseas. If 
confirmed, I intend to outline clear objectives, actively seek out 
alternate points of view, and ensure my team has the right resources to 
accomplish the mission.

    Question. How do you feel your past experience, as well as your 
current position as Deputy Assistant Secretary of State for the Bureau 
of Near Eastern Affairs have prepared you to take on this new role?

    Answer. I have had the privilege of serving our country in some our 
most challenging posts overseas, including Pakistan, Afghanistan, and 
Yemen. Over the course of my 30 years in the Foreign Service, I have 
gained valuable insights into how much the world wants and needs U.S. 
leadership. Throughout my career in government, I have adopted a 
``whole of mission'' approach. Advancing U.S. interests overseas means 
benefiting from the talents, resources, and insights of all U.S. 
government agencies operating overseas. In my current role as the 
Deputy Assistant Secretary of State responsible for coordinating U.S. 
assistance to the Middle East, I oversee a team of 105 people and a 
budget of several billions of dollars in aid to the region. I have 
worked intensively over the past three years to ensure that U.S. 
priorities are well thought out and clearly enunciated, and that our 
foreign assistance resources are properly aligned against those 
priorities. My current job has given me experience bringing together 
multiple agencies and bureaus to accomplish shared U.S. objectives 
across the Middle East.

    Question. Since legislators have pushed back an already overdue 
parliamentary election to 2017, what prospects do you see for the 
resolution of the presidential vacuum in the coming year?

    Answer. We share your concern that Lebanon has been without a 
president for nearly two years. Lebanon deserves a functioning 
government that can meet the needs of the people. If confirmed, I will 
continue to urge the Lebanese Parliament to convene and hold a vote on 
the President, in accordance with Lebanon's constitution and National 
Pact. Lebanese parties that are blocking the formation of a 
parliamentary quorum are undercutting Lebanon's stability and 
democratic practices, and must be held to account.

    Question. Municipal elections are coming up in May of 2016. Do you 
anticipate that these elections will cause local political unrest? If 
so, what do you recommend Lebanon do to mitigate any outbreaks of 
violence? What, if anything, is the U.S. doing to assist Lebanon in 
this task?

    Answer. Our Charge d'Affaires in Beirut, Ambassador Richard Jones, 
met with Lebanese Interior Minister Machnouk on January 29, 2016, to 
discuss security for the municipal elections, among other important 
issues. Along with our partners in the international community, we have 
publicly called on Lebanese leaders to hold municipal elections on 
schedule. The municipal elections are an important part of Lebanese 
democracy.

    Question. If confirmed, what role do you intend to play in 
facilitating dialogue and promoting reconciliation among Lebanese 
factions?

    Answer. If confirmed, I will build on my predecessors' work to 
promote dialogue among the range of Lebanese leaders and with civil 
society. The United States must stand firmly behind the voices of 
moderation who share our vision for a Lebanon that is sovereign, 
independent, free from foreign entanglements, and prosperous.

    Question. How do you view Hezbollah's political role in Lebanon at 
present? Its security role? In your opinion, has the Syrian 
intervention weakened or strengthened Hezbollah? In what ways?

    Answer. Hizballah is a terrorist organization with a single, 
unified chain of command. We do not distinguish between the group's so-
called military and social/political wings. Supporting Lebanon's 
legitimate state institutions--as well as the voices of moderation that 
share our interest in a sovereign, independent, and free Lebanon-- is 
the best way to counter Hizballah's influence.
    On the security front, Hizballah has continued to build up its arms 
cache in Lebanon with help from Iran, a flagrant violation of U.N. 
Security Council Resolution 1701 and other international commitments. 
U.N. Security Council Resolution 1701 calls upon Lebanon to disarm 
Lebanon's militias--a goal we support through our training and 
equipping of the Lebanese military as the sole legitimate defender of 
Lebanon. We are focused on promoting Lebanon's stability and 
sovereignty by building up legitimate state institutions and countering 
extremism. Our support to the Lebanese Armed Forces and Internal 
Security Forces supports the implementation of United Nations Security 
Council Resolutions 1559, 1680, and 1701. Working closely with the 
United Nations Interim Force in Lebanon (UNIFIL) in southern Lebanon, 
the Lebanese military has helped contain tensions along the ``Blue 
Line'' with Israel.
    Hizballah's intervention in Syria to prop up the Asad regime has 
weakened the organization in some ways, while strengthening it in 
others. Since entering the Syria conflict, Hizballah has expended 
substantial resources (both financial and human resources) in support 
of Asad's brutal war against his own people, which is in violation of 
the Lebanese consensus of dissociation from foreign conflicts enshrined 
in the 2012 Baabda Declaration. While Hizballah fighters have gained 
battlefield skills, we see evidence this intervention has had a 
negative impact on the group's standing among its supporters in Lebanon 
who have suffered tremendous human losses on behalf of Hizballah and 
its foreign backers.
    Hizballah has exploited the threat posed by ISIL, Nusra, and other 
extremist organizations to Lebanon to falsely justify its intervention 
in Syria. Such justifications represent a deliberate distortion of 
Hizballah's involvement in a foreign war against the will of the 
Lebanese people. Lebanon wants to implement a policy of dissociation 
from the Syrian conflict, but Hizballah has engaged in the opposite. 
And its actions, along with those of the Asad regime itself, continue 
to fuel the growth of violent extremism in Syria and have drawn 
extremist, terrorist threats to Lebanon. Hizballah's intervention 
undermines Lebanon's stability. The United States has frequently 
publicly called out Hizballah for its violation of the Lebanese 
consensus of dissociation from foreign conflicts. In September 2015, 
then-Counselor of the State Department Thomas Shannon highlighted 
Hizballah's intervention in Syria at the International Support Group 
for Lebanon ministerial-level meeting on the margins of the U.N. 
General Assembly in New York.

    Question. The Lebanese government publically opposes support of 
Bashar al Assad. Yet, Hezbollah has intervened on his behalf. What is 
your assessment of the influence Hezbollah exercises over the Lebanese 
government? Does it rise to the level of ``undue'' influence? What more 
can the government do to counteract Hezbollah's direct contravention of 
the Lebanese government's public policy? Can the U.S. help the Lebanese 
government on this front? If so, how?

    Answer. Hizballah has a minority stake in the current Lebanese 
government. Only 2 of 24 Cabinet Ministers are Hizballah members (the 
Minister of Industry and Minister of State for Parliamentary Affairs--
neither of which are major posts). In the National Assembly Hizballah 
controls only 12 of 128 seats and is the fourth largest party. 
Hizballah's influence in the government does not rise to the level of 
undue influence. A (Sunni) prime minister and a variety of other 
parties represented in the current Cabinet and Parliament prevent 
Hizballah from having undue influence. If confirmed, I will continue to 
encourage Lebanese leaders to speak out against Hizballah's 
intervention in Syria to prop up the Asad regime.

    Question. President Obama signed into law the Hizballah 
International Financing Prevention Act of 2015 on December 18, 2015. 
How do you see this legislation affect Lebanon's economy and financial 
sector? How might it place new pressure on Hezbollah's finances?

    Answer. We are disrupting Hizballah's terrorist capabilities by 
targeting the group's global financial support infrastructure. Our 
target is Hizballah--not Lebanon or the Lebanese people. The 
administration strongly supported the Hizballah International Financing 
Prevention Act of 2015 (HIFPA). The Congress has given the 
administration a valuable tool to help dismantle Hizballah's global 
financial network.
    We do not hesitate to use our authority under HIFPA and other 
sanctions measures to target financial institutions knowingly 
facilitating significant transactions or engaged in money-laundering 
activities on behalf of Hizballah. The State Department and Treasury 
are constantly looking for solid evidence of such activity. Treasury 
and State have consistently used our authorities to expose and target 
Hizballah's financial, commercial, and terrorist activities around the 
world.
    The threat of secondary sanctions for those who knowingly 
facilitate transactions for Hizballah could lead financial institutions 
and others to distance themselves from Hizballah. While Hizballah does 
not maintain accounts in its name, supporters and financiers do manage 
money on behalf of the organization. We have, and will continue to go 
after such financiers, and the signing of the bill into law and the 
subsequent reporting requirements could shine a spotlight on Hizballah, 
their supporters and financiers, and ties to illicit activities.

    Question. What have been the practical effects of the withdrawal of 
Saudi financial support for Lebanon's security forces? What additional 
costs does this withdrawal create for the United States? How likely is 
it that Iran will step in to replace this financial support?

    Answer. We are currently reviewing the impact of the suspension of 
the Saudi funds to the Lebanese security forces to identify gaps in 
current procurement programs, including light attack aircraft (A-29 
aircraft, Cessna). Additionally, we are reviewing how to mitigate the 
impact on programs the Lebanese Armed Forces had planned for and that 
we agree are priorities, such as close air support helicopters and 
protected mobility capabilities.
    We believe the Lebanese Armed Forces deserves the continued support 
of the international community. We cannot leave the field open to 
Hizballah and its patrons. Assistance to the Lebanese Armed Forces and 
the other legitimate state institutions is essential to help diminish 
the role of Hizballah and its foreign patrons. Our assistance to the 
Lebanese military also makes a real difference on the ground against 
ISIL and other extremists.
    So far, we have not seen any immediate effects of the Saudi 
government's announcement on February 19 of a suspension of security 
assistance to Lebanon. The Saudi announcement will impact future 
support for the Lebanese Armed Forces, particularly in procurement of 
U.S. and French equipment. Our assistance to the Lebanese Armed Forces 
will continue. The Lebanese government has in the past rejected Iranian 
offers to supplant the Saudi role and support the Lebanese Armed Forces 
and we have little reason to believe this will change.

    Question. What are the prospects for Saudi-Iranian rivalry and 
animosity to destabilize Lebanon in the near term? What actions or 
steps might trigger a more confrontational approach by actors inside 
Lebanon? What, if anything, is the U.S. doing to counteract any 
confrontations? In your opinion, what should the U.S. be doing?

    Answer. Lebanon has preserved its stability in the midst of 
tremendous instability in the region, but we are fully aware that 
sectarian tensions could flare up with little warning. The Lebanese 
consensus position of dissociation from foreign conflict enshrined in 
the 2012 Baabda Declaration has in some ways tamped down sectarian 
rhetoric in Lebanon.
    Regional tensions have certainly had an impact on Lebanon. The 
Iranian Cultural Center in Beirut was bombed in February 2014, killing 
at least five and wounding more than 100 people. There have been 
reports of threats to the Saudi Embassy in Beirut as well. In addition, 
the November 2015 execution of Shia dissident cleric Nimr-al Nimr by 
Saudi Arabia caused heightened tensions between Lebanese Sunnis and 
Shia and some protests at the Saudi Embassy in Beirut. The United 
States continues to encourage moderation and dialogue between all 
Lebanese factions. We also continue to support the cross-confessional 
Lebanese Armed Forces in its efforts to maintain security in the 
country.

    Question. How stable is the security balance along the Lebanon-
Israel border? What effect have Russian military operations in Syria 
had on Israel's ability to secure its northern border?

    Answer. Hizballah's ongoing military presence in southern Lebanon 
presents a serious threat to the Lebanon-Israel border region, as 
evidenced by Hizballah's attack on an Israel convoy in January 2016. To 
help protect Israel against this threat, the United States has invested 
$3 billion in the Iron Dome system and other missile defense programs 
and systems for Israel. Iron Dome batteries and interceptors have saved 
an untold number of Israeli lives, particularly during the Gaza 
conflict in 2014. In FY 2016 Israel will receive an additional $487 
million in missile defense support, including $55 million for Iron 
Dome. After successful joint tests of David's Sling and Arrow 3 in 
December 2015, in FY 2016 the United States will fund coproduction of 
these systems for the first time--further deepening our missile defense 
cooperation with Israel to protect against threats such as Hizballah's 
rocket and missile arsenal.
    Our support to the Lebanese Armed Forces and Internal Security 
Forces supports the implementation of United Nations Security Council 
Resolutions 1559, 1680, and 1701. Working closely with the United 
Nations Interim Force in Lebanon (UNIFIL), the Lebanese Armed Forces' 
performance in southern Lebanon has helped contain tensions along the 
Blue Line with Israel. U.N. Security Council Resolution 1701 calls upon 
Lebanon to disarm Lebanon's militias--a goal we support through our 
training and equipping of the Lebanese military as the sole legitimate 
defender of Lebanon.
    We note reports that Israeli officials want to coordinate with 
Russiaregarding the situation in Syria. Like Israel, we do not want to 
see Hizballah strengthened by its intervention in Syria, or by Russia's 
actions in Syria.

    Question. Please briefly describe the challenges associated with 
Lebanon's growing refugee population. How do you intend to engage with 
the refugee population inside Lebanon if confirmed? What outcomes and 
policies does the administration wish to see the Lebanese government 
adopt with regard to Syrians present in Lebanon?

    Answer. Lebanon hosts more than one million registered Syrian 
refugees, making it the country with the highest per capita 
concentration of refugees in the world. In addition, there may be up to 
another 500,000 non-registered Syrians, along with large pre-existing 
Palestinian and Iraqi refugee populations.
    The influx of refugees has presented severe challenges to Lebanon's 
already weak public infrastructure and services, including overcrowded 
schools, dilapidated water and wastewater systems, and limited health 
clinics. Refugees live in Lebanese communities across the country, the 
majority in rented or previously unoccupied accommodations, including 
sheds, garages and other substandard housing. As the number of refugees 
has grown, social tensions--especially in host communities--have also 
increased. Politicians across the political spectrum have voiced 
concerns about the destabilizing effects and the economic cost of 
hosting such a large number of refugees.
    If confirmed as Ambassador, I will advocate for continued U.S. 
support for the urgent needs of refugees and the communities that host 
them. Thanks to the generous support of Congress, we are providing U.S. 
humanitarian assistance through U.N. agencies and NGOs for urgently 
needed food, shelter, water, health care, education, and protection for 
refugees. If confirmed, I will continue addressing the extraordinary 
needs in Lebanese communities by working on private sector job 
creation, education, and water and wastewater services.
    We encourage the Lebanese government to follow through on its 
commitments to expand legal residency for Syrian refugees and allow 
access to education and work opportunities for both Syrian refugees and 
vulnerable Lebanese, with the support of international donors. These 
commitments were announced at the February 4 London ``Supporting Syria 
and the Region'' Conference. Expanding education and work opportunities 
to refugees is also a central goal of the President's Summit on 
Refugees that he will host on the margins of the U.N. General Assembly 
in September.

    Question. Lebanon is a tier 2 country according to the U.S. 
Department of State's 2015 Trafficking in Persons Report, meaning 
Lebanon is a ``source and destination country for women and children 
subjected to labor and sex trafficking. . . .'' How do you plan to work 
with the Lebanese government to combat this issue? How has the 
overarching political paralysis in the country affected the 
implementation of anti-trafficking efforts or legislative initiatives 
to extend worker protections?

    Answer. If confirmed, one of my strong priorities will be to build 
on our current efforts and improve the Lebanese government's 
performance on anti-trafficking measures. Lebanon is both a source and 
destination country for women and children subjected to forced labor 
and sex trafficking. Lebanon is also a transit country for Eastern 
European women and children subjected to sex trafficking in other 
Middle Eastern countries. The Syrian crisis has compounded the 
challenge, as Syrian refugees are at risk of sex trafficking and forced 
labor.
    Our Embassy in Beirut continues to work with and raise TIP 
awareness among prosecutors, judges, and law enforcement officials. We 
have made some progress on this front, but more needs to be done. We 
have raised the importance of combating TIP as a top U.S. foreign 
policy priority at the highest levels of the Lebanese government. 
Unfortunately, Lebanon's ongoing political paralysis prevents the 
passage of crucial legislative measures to combat TIP, including a 
National Action Plan and the National Strategy for Combating 
Trafficking.
    If confirmed, I will work to increase our collaboration and 
programs with the government and NGOs to identify, refer, and protect 
trafficking victims as well as to improve investigation techniques and 
victim protection mechanisms among the judiciary, law enforcement 
officials, and armed forces. We must also continue U.S. efforts to push 
the government to enact needed legislation, including the National 
Action Plan and the National Strategy to Combat Trafficking.

    Question. In your opinion, does U.S. foreign assistance to Lebanon 
accurately reflect U.S. priorities in the region? Should the U.S. be 
providing more military aid? More humanitarian aid?

    Answer. U.S. assistance to Lebanon reflects our priorities in the 
region, including working to counter ISIL and responding to the refugee 
crisis, both of which are also critical priorities for the Lebanese. 
For example, with Congress's continued support, the United States is 
the single largest donor to the Syrian refugee crisis. Given Lebanon's 
status as the country with the largest number of refugees per capita in 
the world, the United States has provided nearly $1.1 billion to 
support the Syrian refugee response in Lebanon since the start of the 
crisis. In addition to our humanitarian support, we provide significant 
bilateral economic assistance that advances our partnership with the 
Lebanese people and also bolsters communities that are hosting refugees 
through investments in basic and higher education, water 
infrastructure, and programs that provide economic opportunity. This 
support has totaled nearly $400 million since FY 2011. Our robust 
security assistance allows us to partner with the Lebanese Armed Forces 
and the Internal Security Forces which are critical to achieving our 
policy objectives. Since FY 2011, the United States has provided nearly 
$450 million in Foreign Military Financing (FMF) to Lebanon, while 
Lebanon has also benefited from additional military assistance from the 
Department of Defense. Recognizing that there are critical needs in 
Lebanon that continue to grow, the administration has requested an 
increase in both economic and security assistance for FY 2017.

                               __________

 Responses of Stephen Michael Schwartz, nominated to be Ambassador to 
   the Federal Republic of Somalia, to Questions from Members of the 
                               Committee

               ambassador-designate schwartz's responses 
                    to questions from senator corker

    Question. For questions 4-7, please augment with: An accounting of 
the payments to nations per soldier of a U.N. peacekeeper contributing 
to a PKO mission and any associated table if there are varying 
circumstances or valuations in such payments. An accounting of U.S. 
assistance going to each of the AMISOM troop contributing countries at 
present and in FY2015 in support of their deployments. A list of U.S. 
security assistance to these same countries apart from that associated 
with their AMISOM deployments.

    Answer. With regard to payments to U.N. peacekeepers, by resolution 
68/218, the U.N. General Assembly decided to establish a single rate of 
reimbursement to countries contributing contingent personnel to United 
Nations field operations in the amount of $1,332 per person per month 
as from July 1, 2014, increasing to $1,365 per person per month as from 
July 1, 2016, and increasing to $1,410 per person per month as from 
July 1, 2017, in addition to service premiums (e.g., risk and enabling 
premiums). It should be noted that all AMISOM troop stipends are 
currently paid on a voluntary basis by the EU through their Africa 
Peace Facility, and not the U.N.
    Attachment 1 provides an accounting of all voluntary assistance 
provided to AMISOM troop contributing countries (TCCs) in FY 2015 and 
to date in FY 2016.
    Attachment 2 provides an accounting of all military assistance 
provided to the same TCCs outside of their assistance for AMISOM during 
the same time period.

    [The material referred to above follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________
               ambassador-designate schwartz's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been a 
fundamental and prominent part of my career. I was responsible for 
human rights on my first tour in Ethiopia, and worked aggressively to 
understand the situation and advocated for important cases and causes, 
among them the justification for and the treatment of political 
prisoners, independence of the labor federation, and an inclusive 
electoral process. These interventions demonstrated to the Ethiopian 
public and government that the United States cared about and would 
speak out about human rights cases.
    As the sole desk officer for Sudan from 1996-1998, I incorporated 
growing concerns about religious freedom and slavery into the 
mainstream of our policy on Sudan. In Cuba from 1999-2001, I confronted 
an authoritarian government by developing a wide range of Cuban 
contacts. A trip to a provincial city revealed hitherto obscure civil 
society organizations, which provided the United States with new 
insights into Cuban society as well as vehicles to support civil 
society.
    I have been very involved in reporting on and promoting United 
States support for credible and peaceful elections in many countries 
but the two most recent, in Zambia in 2011 and Nigeria in 2015, were 
the most consequential. Opposition candidates won both elections, 
empowering the public and holding leaders accountable. In both cases, 
the winning and losing candidates publicly credited the United States 
for leveling the playing field to make the race fair and competitive. 
In Zambia, I directed the Embassy's interagency team, liaised with the 
leadership of the National Democratic Institute, met regularly with the 
electoral commissioner, and ensured regular high quality reporting on 
the electoral process. On Nigeria, as office director, I coordinated 
the United States government effort from Washington, DC, which included 
sending a top anti-election violence expert to Nigeria repeatedly, 
coordinating with the United Kingdom, and supporting Secretary Kerry's 
key visit to Nigeria before the election.
    If confirmed, I look forward to applying the experience gained 
throughout my career to the very real human rights and democracy 
challenges facing Somalia.

    Question. What are the most pressing human rights issues in 
Somalia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Somalia? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, working with the African Union, the Federal 
Government of Somalia, and Somali civil society to improve protection 
of civilians will be central to my engagement. Violence against women 
and girls, including rape, and forced evictions of Internally Displaced 
Persons (IDPs), remains a pervasive problem. If confirmed, I will work 
with Somali and international counterparts, including the African Union 
Mission in Somalia (AMISOM) and humanitarian and development actors to 
improve protection efforts, ensuring that women can access the vital 
services they need and perpetrators are held accountable.
    Women continue to be marginalized within political processes and 
underrepresented at all levels of government. If confirmed, I will 
promote the Women, Peace, and Security agenda in Somalia and will 
advocate for the participation of women in government and in politics. 
Specifically, I will support the Federal Government of Somalia's 
proposed 2016 electoral plan mandating 30 percent of the seats in the 
Somali parliament to be allocated to women.
    IDPs continue to constitute the large majority of the food insecure 
population in Somalia, and represent nearly 10 percent of the Somali 
population. The U.N. Humanitarian Country Team is currently drafting a 
Somalia IDP durable solutions strategy. If confirmed, I will support 
humanitarian and development planning and ensure that humanitarian 
assistance and longer-term development action is sustainably addressing 
the protection issues impacting IDPs.
    I am also deeply concerned about the situation of media freedom in 
Somalia. The country remains one of the most dangerous places to be a 
journalist. I will regularly discuss protection concerns with Somali 
journalists themselves, speak out against abuses against journalists, 
and strongly encourage the Somali government to fully respect freedom 
of expression. In addition, I will work with Somalia and the United 
Nations to further implementation of Somalia's action plan to end the 
use and recruitment of child soldiers and standardize operating 
procedures for the reception and handover of children separated from 
armed groups.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Somalia in 
advancing human rights, civil society and democracy in general?

    Answer. Key challenges to addressing human rights concerns include 
continued insecurity in al-Shabaab-controlled portions of the country. 
This limits not only U.S. government access to much of the country, but 
also access by international and local partners who could provide 
information that is vital to addressing human rights concerns. 
Improving civilian protection while conflict continues is extremely 
challenging, but it will be central to my efforts.
    Somali women and girls experience systematic marginalization, which 
makes it difficult to address gender-based violence and sexual 
exploitation. Women are reluctant to report abuse due to possible 
reprisals, and police are reluctant to investigate. Improving 
protection for journalists is challenging due to the continued 
insecurity and presence of al-Shabaab. For example, in the past four 
years, Al-Shabaab harassed and threatened numerous reporters and killed 
23 Somali journalists. The Government of Somalia and regional 
authorities continue to arrest, detain, and prosecute journalists as 
well. Additionally, in regard to child soldiers, the government has 
taken additional, though limited steps, to implement its action plan 
with the U.N. In 2015, the federal government reiterated its commitment 
to eliminating the use of child soldiers among the ranks of the Somali 
National Army (SNA), and Somalia became signatory to the ratification 
of the Convention on the Rights of the Child. However, more also needs 
to be done to improve demobilization, rehabilitation, and reintegration 
efforts for children separated from armed groups.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Somalia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, one of my most important goals will be 
improving respect for human rights in the country, so that all Somalis 
have the opportunity to exercise their fundamental freedoms and live 
their lives without fear. My efforts will include those focused on 
improving civilian protection, strengthening efforts to address rape, 
building respect for media freedom, and ensuring that children are not 
used as soldiers. Human rights organizations and other NGOs are 
critical to this work, and I look forward to meeting with them.
    The Leahy laws are based on a basic principle: a government 
security apparatus' respect for human rights bolsters its legitimacy 
and trustworthiness in the eyes of the people it is supposed to 
protect, and enhances its ability to protect. Moreover, holding 
violators accountable fortifies the rule of law, which will be key in 
our efforts to improve governance in Somalia. If confirmed, my staff 
and I will convey this message diligently and consistently to the 
Somali government at all levels. The Department vets all assistance to 
Somali security forces in accordance with the Leahy Law, without 
exception. If confirmed, I will ensure that our vetting continues to be 
comprehensive, thorough, and in full compliance with the Leahy laws, 
and that those who violate human rights are restricted from receiving 
any training or other assistance until the responsible actors are 
brought to justice. Furthermore, I will strongly urge the Somali 
government to hold all violators accountable for their actions.

    Question. Will you and your embassy team actively engage with 
Somalia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Somalia?

    Answer. The ability of citizens to freely exchange information and 
their views is essential to the development of legitimate, fully 
functioning democratic governance in Somalia. The detention and 
prosecution by federal and regional government authorities of 
journalists critical of authorities has been a problem throughout 
Somalia. Somaliland authorities also have arrested, detained, and 
denied a fair trial to those expressing support or working directly for 
the Mogadishu-based Federal Government of Somalia for political 
reasons. If confirmed, my staff and I will consistently raise our 
concerns about these practices with Somali authorities at all levels of 
government and seek the release of any political prisoners.

    Question. Will you engage with Somalia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, these issues will be at the forefront of my 
engagement with Somali authorities at all levels of government. Human 
rights, including civil rights and governance, are fundamental to 
advancing our overarching policy goals in Somalia. Legitimate 
governance that can provide security and other services to all Somali 
people, regardless of gender or clan affiliation, is fundamental to 
achieving lasting peace and stability, and a government's respect for 
human rights, including civil rights, is in turn inextricably linked to 
its legitimacy in the eyes of its citizens.

    Question. Given the current political environment and the number of 
obstacles to achieving the Vision 2016 objectives, which of these 
objectives can the international community realistically expect the 
Somalis to achieve this year?

    Answer. Since the United States formally recognized the Federal 
Government of Somalia (FGS) in 2013, Somalia has made significant gains 
in its political process and emerged from state failure. The United 
States is working closely with the UN, AU, and other key partners to 
enable the Somalis to conduct an on-schedule election this year. During 
the February 23-24 High Level Partnership Forum Ministerial for 
Somalia, the Somali government affirmed its commitment to pursue 
elections in 2016, with strong support from the international 
community. The FGS endorsed an election model on January 27, more 
representative than the 2012 process by holding country-wide 
consultations.
    Additionally, Somalia's state formation is nearly complete. The 
reconciliation conference to form the final of four interim 
administrations for Middle Shabelle and Hiraan is underway, and the 
government has committed to completing this process by year's end.

    Question. If confirmed, upon which objectives will you place the 
most diplomatic effort and U.S. resources?

    Answer. During his historic visit to Mogadishu, Secretary Kerry 
announced that the Department was beginning the planning process to re-
establish formal diplomatic premises in Mogadishu. As a first step, the 
Department of State launched the transition of its Somalia Unit to U.S. 
Mission to Somalia, co-located in Embassy Nairobi, on September 8, 
2015.
    If confirmed, during my tenure it will be my top priority to 
establish a safe, secure, and functional embassy platform from which 
Mission Somalia may operate in Mogadishu. The United States has 
considerable national security interests in Somalia, which necessitates 
a permanent and fully-functioning diplomatic facility. Somalia's 
political process and security sector are fragile. Forging the 
relationships necessary to support Somalia's state-building enterprise 
will require our diplomats to have a functioning facility, security, 
and mobility necessary to engage.

    Question. Are our international partners providing adequate 
assistance to address the significant governance challenges in Somalia? 
Is there a diplomatic role for you, if confirmed, for putting the need 
for improved governance on the agenda of the Somalis and other donors?

    Answer. Through the New Deal Compact for Somalia, the international 
community has prioritized good governance as a pillar of Somalia's 
political process. As Somalia's Compact is set to expire this year, the 
United States is committed to the next phase of international 
engagement in Somalia, based on a shared set of principles and joint 
partnership, and will work through the Compact's successor-the Federal 
Government of Somalia's three-year (2017-2019) National Development 
Plan (NDP)-to continue to prioritize strengthening Somali governance. 
As Secretary Kerry said during his May 2015 visit to Mogadishu, ``we 
all have a stake in Somalia's success and the world cannot afford to 
have places on the map that are essentially ungoverned.'' The United 
States has an over-arching interest in helping the people of Somalia 
build a peaceful nation with a stable democratic government that can 
provide security and services for its citizens.
    If confirmed, I look forward to working alongside the international 
community and Somali government in support of the NDP. I will work 
diligently to promote the governance agenda.

    Question. If confirmed, how will you work to ensure that there is a 
strong focus on good governance in our U.S. assistance to Somalia?

    Answer. If confirmed, I will be sure to continue diplomatic support 
for governance programs to help develop institutional capacity and 
service delivery, improve transparency, and establish the rule-of-law; 
stabilization assistance to help with community needs; employment 
initiatives and education programs, particularly aimed at youth; and 
food aid and other life-saving assistance to address immediate 
humanitarian needs.
    Additionally, strong and transparent public financial management is 
key for Somalia's stability and future growth. For this reason, in 
particular, we are very concerned about allegations of corruption and 
fiscal mismanagement in Somalia. As the government of Somalia takes 
steps to ensure that public funds are spent responsibly and 
transparently, it will earn the trust and confidence of the Somali 
people and the international community. If confirmed, I will continue 
our support of the Somali government's efforts to tackle these 
challenges and to provide significant resources for technical 
assistance on public financial management and financial governance 
initiatives.

    Question. What portion of the funding for either of those programs 
has been channeled towards ensuring there are proper accountability 
structures and institutions in the police and military to investigate 
allegations of wrongdoing?

    Answer. With regard to Danab and the broader Somali military, our 
efforts to ensure accountability start with our defense institution 
building (DIB) programs. Building an effective and professional 
Ministry of Defense is critical to ensuring that there are capable 
civilian oversight and accountability structures over Danab and the 
rest of the Somali military. The Department of State has already begun 
putting in place programming to build the Ministry of Defense through 
the Peacekeeping Operations (PKO) account to fund technical advisory 
support. We have obligated $1.8 million in FY 2015 PKO OCO funds for 
this purpose, and are working with our colleagues in the Department of 
Defense to design and put in place additional DIB programming for FY 
2016. The low absorptive capacity of these institutions has forced us 
to carefully calibrate our programming, and we are also working to 
ensure our programs are fully coordinated with donor partners working 
in this area, such as the EU and UK. Nonetheless, DIB and the creation 
of effective oversight structures remains a high priority for both DOS 
and DOD.
    The Bureau of International Narcotics and Law Enforcement Affairs 
(INL) has obligated $8.5 million in FY 2012 and FY 2013 International 
Narcotics Control and Law Enforcement (INCLE) Overseas Contingency 
Operations (OCO) assistance to build the capacity of the Criminal 
Investigative Division (CID) of the Somali Police Force (SPF) to 
investigate serious crimes. INL has obligated approximately $1.1 
million in FY 2013 and FY2014 in INCLE-OCO to provide technical 
assistance to the SPF on a variety of issues, such as CID structure, 
organization and training priorities, through a Senior Law enforcement 
Advisor based in Mogadishu. At this time, there is no functioning 
internal police accountability structure in Somalia, and allegations of 
police abuse of power currently fall under the CID to investigate. As 
such, any increase in the capacity of the CID to investigate crimes, 
will support increased accountability for police. INL coordinates 
closely with other donors who are working in the civilian security 
space, including the EU, UK, UN, and AMISOM.

    Question. What will you do, if confirmed as Ambassador, to ensure 
that we are promoting and supporting accountability for police and 
military abuses, especially with the units we are training?

    Answer. Respect for human rights and protection of civilians is a 
core component of all peacekeeping and military training conducted by 
the United States for the security forces operating in Somalia. We have 
engaged the governments of troop contributing countries regarding the 
allegations of abuse and misconduct by security forces serving in 
AMISOM, and continue to provide training to enhance their 
professionalism. If confirmed, I will continue this ongoing dialogue 
with Somali and AMISOM government officials to urge greater attention 
to protection of civilians and respect for human rights. In addition, I 
will continue to advocate for investigations into and accountability 
for actions related to abuse or sexual exploitation.

    Question. Have either the African Union or troop contributing 
countries adequately investigated and held accountable those accused? 
If confirmed, what will be your role in ensuring accountability for 
abuses carried out by troops funded and supported by the United States?

    Answer. The United States takes allegations of human rights abuses 
against AMISOM extremely seriously, and the Department condemns such 
acts unequivocally. The United States immediately engaged with the 
African Union and the Governments of Uganda and Burundi to undertake a 
credible and transparent investigation into the allegations of sexual 
exploitation and abuse reported by Human Rights Watch in 2014. The 
United States supported the AU and Troop Contributing Countries (TCCs) 
in conducting a full investigation, and we are aware of at least two 
trials and convictions by the Ugandan Patriotic Defense Force. We were 
also deeply concerned about incidents on July 31, 2015, in which AMISOM 
forces killed civilians in Marka. AMISOM apologized for the deaths and 
announced the indictment of three soldiers on August 21, 2015.
    If confirmed, working with the African Union, Government of 
Somalia, and Somali civil society to improve protection of civilians 
will be central to my engagement. I will work to hold the AU 
accountable to its AMISOM Protection, Human Rights and Gender Working 
Group that is responsible for monitoring TCC investigations, and 
developing training modules.

                               __________
               ambassador-designate shwartz's responses 
                    to questions from senator perdue

    Question. Please briefly describe your vision for taking on a new 
role as the U.S. Ambassador to Somalia. What are your goals and 
priorities? What challenges do you foresee?

    Answer. If confirmed to serve as the U.S. Ambassador to the Federal 
Republic of Somalia, I plan to elevate the level and intensity of U.S. 
engagement with the Somali government, public, and international 
community; bring greater coordination and direction to U.S. policy and 
programs; and provide a secure and productive environment for the 
American and Somali staff working at the U.S. Mission.
    My specific priorities are to help fulfill the Secretary's pledge 
to open a U.S. diplomatic premise in Mogadishu; help Somalia with its 
state formation, constitutional development, and national elections; 
and bring greater security to the Somali people by degrading the 
capability of the terrorist group al-Shabaab while building the 
capacity of the Somali National Army and the Somali National Police.
    Somalia has made tangible progress recovering from its period as a 
failed state, but this progress is fragile. Efforts by Somali 
authorities, the United States, and international partners are 
conducted in an unpredictable and sometimes threatening environment due 
to attacks by Al-Shabaab. The effectiveness of U.S. engagement is 
reduced by the lack of a facility allowing us to work continually in 
Mogadishu.

    Question. How do you feel your past experience, as well as your 
current position as Director of Australia, New Zealand, and Pacific 
Island Affairs at the Department of State have prepared you to take on 
this new role?

    Answer. My career has prepared me well for the significant 
responsibilities and challenges attendant serving as the U.S. 
Ambassador to the Federal Republic of Somalia. Prior to joining the 
Foreign Service, I acquired a grass roots understanding of Africa 
through my service as a Peace Corps Volunteer, followed by three years 
in the Africa Bureau in Washington, DC, of which six months was spent 
working in Mali and Chad, two poor fragile Sahelian countries. I also 
earned a Master's degree in African Studies and worked on a conflict 
resolution project at the Brookings Institution. Immediately before 
joining the Foreign Service, from 1990-1991, I was one of the earliest 
hires at the Citizens Democracy Corps, a non-governmental organization 
launched by the United States government to facilitate assistance to 
people and governments in the newly liberated Central and Eastern 
Europe.
    After joining the Foreign Service I spent my first seven years 
working in or with the Greater Horn of Africa region, which includes 
Somalia. I worked in Ethiopia from 1992-1994, during Operation Restore 
Hope. I understand the politics, history, and cultures of East Africa. 
I have spent six years as a Deputy Chief of Mission, two years of which 
were leading the embassy as Charge d'Affaires. I believe both missions 
under my leadership were characterized by high productivity and high 
morale, a goal I have set for every office or institution that I lead. 
In Zambia, the Ambassador and I formed an excellent leadership team 
and, if confirmed, I will try assiduously to apply the experiences 
gained in Zambia to my new responsibilities. If confirmed, my two most 
recent assignments in Washington, DC have enabled me to work on a wide 
range of policy issues, which will enable me to engage more 
successfully with interagency policymakers and Congress while assigned 
overseas as the U.S. Ambassador to Somalia.

    Question. As Ambassador to Somalia, you will be charged with 
changing the nature of the bilateral relationship. What are your 
benchmarks for re-establishing a U.S. embassy in Mogadishu? What are 
the challenges under the current system for U.S. diplomats and USAID 
personnel traveling back and forth from Kenya?

    Answer. During his visit to Mogadishu, Secretary Kerry announced 
that the Department was beginning the planning process to re-establish 
formal diplomatic premises in Mogadishu. As a first step, the 
Department of State launched the transition of its Somalia Unit to U.S. 
Mission to Somalia, co-located in Embassy Nairobi, on September 8, 
2015. Ensuring that a diplomatic facility in Mogadishu is as secure and 
efficient a platform as possible is a high priority for the Department. 
The planning process is moving forward, and the Department is 
considering its options for facility designations at the Mogadishu 
International Airport (MIA).
    If confirmed, during my tenure it will be my top priority to 
establish a safe, secure, and functional embassy platform from which 
Mission Somalia may operate inside of Somalia. To date, Mission Somalia 
staff maintains a rotational presence in Mogadishu, and travel 
sporadically to other regional capitals and sites in Somalia, when the 
security situation permits. The United States has considerable national 
security interests in Somalia, which necessitate a permanent and fully-
functioning diplomatic facility. Somalia's political process and 
security sector are fragile. Forging the relationships necessary to 
support Somalia's state-building enterprise will require our diplomats 
to have a functioning facility, security, and mobility necessary to 
engage.

    Question. The FY16 Foreign Operations request includes a 
substantial increase in development assistance for Somalia--what are 
the priorities for that aid? Would you change any of those 
prioritizations? How do the State Department, USAID, and DOD ensure 
sufficient oversight and direction for that support given security 
restrictions on U.S. government personnel movement within the country?

    Answer. The primary goal of U.S. assistance to Somalia is to 
promote security and support the development of a unified, peaceful 
Somalia. The increase in U.S. development resources requested in FY 
2016 is commensurate with and complementary to security sector and 
humanitarian investments in Somalia. Somalia's issues require long-term 
development initiatives that will address the underlying human 
development, governance, and economic challenges facing a country 
emerging from more than two decades of conflict.
    Increased U.S. development resources will prioritize community 
stabilization and recovery; consolidation of representative governing 
institutions and critical state-building processes; the establishment 
of responsive and legitimate local governance; and the expansion of the 
delivery of critical basic services. Additional resources will support 
Somalia's economic recovery by engaging with the recently revived agro-
pastoral sector, the return of a vibrant, entrepreneurial diaspora, and 
the sustainable management of natural resources. I do not see a need 
for any changes to the FY 2016 development funding priorities at this 
time.
    The State Department and USAID have third party monitoring 
mechanisms to conduct consistent, on-the-ground performance monitoring 
and verification visits, and report to technical staff regularly on 
their findings to enable effective and efficient management of projects 
in Somalia. The Department of Defense directly implements, monitors, 
and provides administrative oversight of its training and assistance to 
AMISOM and Somali forces through U.S. forces on the ground in Somalia, 
supplemented by frequent visits by the U.S. Defense Attache to Somalia.

    Question. What role should the United States play in supporting the 
Somali electoral process in 2016? How might donors facilitate more 
transparency to support free and fair elections given widespread 
allegations of bribery in Somali politics?

    Answer. The United States has an over-arching interest in helping 
the people of Somalia to build a peaceful nation with a stable 
democratic government that can provide security and services for its 
citizens. The holding of an electoral process in 2016 that is more 
inclusive and transparent than the 2012 clan elders selection process 
will be a key step toward that broader goal. The FGS endorsed an 
election model on January 27 that offers the prospect of an improved 
process and a more representative government. During the February 23-24 
High Level Partnership Forum Ministerial for Somalia, the Somali 
government affirmed its commitment to hold elections in 2016 based on 
this model, with strong support from the international community. We 
are currently focused on helping the FGS secure the Puntland regional 
government's support for the model.
    The United States is also working closely with the UN, AU, and 
other key partners to encourage the Somalis to address as soon as 
possible the remaining issues necessary to implement the January 27 
model, including to help ensure that it is more transparent and less 
susceptible to bribery or manipulation than the 2012 clan elders 
process. The formation of electoral colleges that are larger and more 
inclusive than the 2012 process will be particularly important, along 
with voter education and secure ballot procedures.

    Question. What are your expectations for the constitutional review 
process? If confirmed, how will you engage with groups involved?

    Answer. Somalia's constitutional review is behind schedule, having 
missed a 2015 deadline for holding a referendum on a revised 
constitution. However, the review process is underway and significant 
progress has been made on technical aspects of the constitution. Larger 
political issues, including the delineation of federal relationships 
and authorities among levels of government, have yet to be tackled. A 
broad public education campaign and inclusive dialogue process is 
necessary help ensure the referendum's credibility and legitimacy. The 
government also needs to develop a plan for how voting on the 
referendum will take place. We and our international partners are 
encouraging the Somalis to complete the review process and conduct a 
public awareness campaign to enable a referendum in 2017.If confirmed, 
I will engage proactively with government, parliament, and civil 
society actors, including women's groups and minorities, to encourage 
parties to play an active role and to promote transparency and dialogue 
throughout the process.

    Question. Al Shabaab continues to seek recruits in the United 
States and issue public threats against American targets. To what 
extent does Al Shabaab pose a direct threat to U.S. citizens? To U.S. 
national security?

    Answer. Al-Shabaab continues to pose a continuing and imminent 
threat to U.S. persons and interests in East Africa. It seeks to 
delegitimize the Federal Government of Somalia by terrorizing and 
targeting civilians, Somali government officials, African Union Mission 
to Somalia (AMISOM) forces, and international partners operating in 
Somalia and elsewhere in the region. Our commitment to assisting the 
Somali government and people makes us and our partners prime targets of 
al-Shabaab. We have no credible evidence to suggest that al-Shabaab has 
the capability to conduct attacks in the United States, but we consider 
it a threat to U.S. national security given its efforts to destabilize 
the region through brutal, asymmetric attacks and continued targeting 
of U.S. persons and interests.

    Question. How would you characterize Al Shabaab's relationship with 
Al Qaeda and affiliates? With the Islamic State? How does the Obama 
administration assess the impact of Ahmed Godane's death on the 
organization?

    Answer. Al-Shabaab is an affiliate of al-Qaeda, an organization to 
which it pledged allegiance in 2012 and from which it receives funding, 
weapons, and other resources via al-Qaeda in the Arabian Peninsula 
based in Yemen. Al-Shabaab senior leaders appear to remain loyal to al-
Qaeda, which has also been known to train al-Shabaab operatives and 
fighters. We are aware of reports that indicate that ISIL is openly and 
actively challenging al-Shabaab's affiliation with al-Qaeda through 
videos posted on social media. At this time, we are not aware of 
credible evidence to suggest that ISIL has established a branch or 
affiliate in Somalia. Al-Shabaab senior leaders reportedly view the 
prospect of ISIL's presence in Somalia as a threat to its influence and 
ideology in East Africa. We are watching these developments closely 
with the understanding that the threat environment in Somalia is 
dynamic.
    The death of the former emir Godane in September 2014 dealt a 
significant blow to al-Shabaab. Godane was one of the architects of al-
Shabaab's strategy to expand its operations to the region and target 
AMISOM troop contributing countries such as Uganda, Kenya, and 
Djibouti. As in other cases, al-Shabaab chose another emir shortly 
after Godane's death and continued to conduct attacks within Somalia 
and elsewhere in the region. The new emir appears intent on continuing 
Godane's legacy of conducting deadly attacks throughout Somalia and 
Kenya, and apparently has a strategy to increase pressure on AMISOM. 
Godane's death created a temporary disruption in al-Shabaab's ability 
to operate, but the group remains a resilient and potent threat to 
stability in East Africa.

    Question. What are Al Shabaab's primary sources of revenue today? 
To what extent does diversion of humanitarian aid by Al Shabaab 
continue to be a problem?

    Answer. Since losing control of major seaports such as Kismayo and 
Baraawe, al-Shabaab no longer has access to vast amounts of charcoal to 
generate revenue. We are aware of reports indicating that the group 
continues to benefit indirectly from illicit charcoal trade in southern 
Somalia, but it is far less than previous estimates that suggested that 
al-Shabaab received tens of millions of dollars annually from charcoal 
shipments. Al-Shabaab continues to accumulate revenue from illegal tax 
collection, checkpoints, and extortion from local communities. The 
group also benefits from smuggling operations that involve sugar, 
livestock, and other commodities throughout the region.
    While there is always a risk of diversion as long as al-Shabaab 
remains active, we do not have evidence of substantial diversion of 
humanitarian resources. USAID and its implementing partners have due 
diligence procedures in place to carefully track and account for their 
assistance and to ensure it reaches the intended beneficiaries.

    Question. What are your security concerns for your post? How can we 
be of assistance?

    Answer. (SBU) Mogadishu is a dangerous place, and the Department 
has taken several critical steps needed to enhance our security 
posture. For example, the facility used for temporarily housing our 
staff has been erected with enhanced physical security features. The 
Department has put in place regulations meant to safeguard our 
diplomats: while in Mogadishu, we remain within the confines of the 
Mogadishu International Airport (MIA), two Regional Security Officers 
accompany staff when traveling, Chief of Mission personnel only utilize 
chartered flights into Somalia and are not permitted to transit MIA's 
commercial terminal, and staff are issued security tracking 
technologies to capture real-time whereabouts.
    As MIA is the hub of engagement for the international community in 
Mogadishu, the Department is identifying resources to help strengthen 
MIA perimeter and operational security. Bolstering security at MIA will 
enhance the safety and security of our staff when they are on the 
ground in Mogadishu. Additional resources to shore-up security, 
facility, and airport upgrades would provide the Department with an 
enhanced and more secure platform from which to work at MIA, until 
conditions permit a fully functional long-term diplomatic facility in 
the future.

    Question. Please describe the respective roles of AFRICOM, State 
Department security contractors, and AMISOM troop contributing 
countries in implementing U.S. security assistance to the Somali 
military.

    Answer. Currently, State Department contractors and grantees funded 
under the Peacekeeping Operations (PKO) account are implementing a 
range of activities, to include provision of equipment and supplies, 
stipends, and training for SNA forces. The Danab Advanced Infantry 
Battalion, which received basic training and equipment through State 
contract personnel, has been selected to take part in additional 
advanced training implemented by U.S. military personnel, as well as 
receive more advanced equipment. This more advanced assistance is 
funded under Section 2282 of the National Defense Authorization Act. 
U.S. military personnel are also implementing improvements to the 
training camp for Danab, which is funded through the PKO account. We 
expect DoD to continue to play a significant role in implementation of 
assistance for the SNA, both through Section 2282 and under the PKO 
account. State and DoD policy and program staff coordinate closely on 
all security assistance programming for Somalia, both through weekly 
video teleconferences and bi-monthly in-person synchronization 
meetings. These meetings are designed to ensure that all parties have 
full visibility on each other's projects, and that efforts are fully 
synchronized and complementary.

    Question. How is the United States engaging with other donors on 
security assistance and how is it coordinated and overseen?

    Answer. The primary mechanism for U.S. engagement on security 
sector reform with key partners has been through the New Deal Compact 
for Somalia. Mission Somalia co-leads the New Deal Working Group on 
Security (PSG 2), in conjunction with the Governments of Turkey and 
Somalia. PSG 2 largely focuses on coordinating assistance and support 
to build a cohesive, unified Somali National Army (SNA). PSG 2 
regularly convenes at the technical level to identify key areas of 
support for donor assistance.
    A top security sector priority for the United States has been the 
integration of clan militias into a national army structure as the 
state formation began to formalize. The United States works closely 
with the UK, AMISOM Troop Contributing Countries, Turkey, and recently 
the UAE, through small group meetings to streamline support to SNA. 
Additionally, through the Department of Defense's Military Coordination 
Cell, the United States maintains a five-person staff at MIA to advise 
and assist AMISOM and SNA; they also engage daily with donor country 
military liaisons.
    During the February 23-24 High Level Partnership Forum-the New 
Deal's ministerial-level conference-the international community made a 
strong plea for the FGS to provide an overarching security architecture 
plan to streamline and coordinate donor assistance to rebuild Somalia 
security forces. This master plan is a key component that will lay the 
foundation for Somalia's security services and better coordinate 
assistance from the international community.

    Question. The President has provided a full waiver for Somalia from 
sanctions under the Child Soldiers Protection Act of 2008. Do you agree 
with the President's decision? What is the Somali government doing to 
ensure that its forces do not include child soldiers?

    Answer. I agree with the President's determination that it is in 
the national interest to grant a full waiver of CSPA restrictions to 
Somalia. The full waiver for Somalia is intended to allow the United 
States to assist counterterrorism efforts and support the Federal 
Government of Somalia (FGS) as it works to build a more stable and 
secure future for Somalis.
    The FGS has taken limited but continued steps towards implementing 
its UN-backed child soldier action plan, including the establishment of 
a dedicated Child Protection Unit (CPU), which is partially funded by 
the United States. The CPU is operational and conducts training on 
prevention and participating in screening efforts. If confirmed, I will 
work with the FGS and the U.N. to urge additional actions to prevent 
the recruitment and use of child soldiers and to demobilize, 
rehabilitate, and reintegrate children identified in the Somali 
National Army or associated groups, or children previously associated 
with al-Shabaab.

    Question. In 2014, AMISOM soldiers from Uganda and Burundi were 
accused of sexually exploiting and abusing Somali women in Mogadishu. 
What steps have been taken to investigate and discipline those 
responsible? Has this led to the suspension of U.S. assistance to any 
units under human rights vetting procedures?

    Answer. The United States takes allegations of human rights abuses 
against AMISOM extremely seriously, and the Department condemns such 
acts unequivocally wherever they take place. The United States 
immediately engaged with the African Union and the Governments of 
Uganda and Burundi to encourage them to undertake a credible and 
transparent investigation into the allegations of sexual exploitation 
and abuse. The United States supported the AU and Troop Contributing 
Countries (TCCs) in conducting a full investigation of those 
implicated. We have not suspended U.S. assistance to TCCs based on 
sexual exploitation or abuse allegations. In cases where we have found 
credible evidence of sexual exploitation or abuse, the units in 
question had already rotated out of AMISOM and were no longer receiving 
U.S. assistance.

    Question. Human rights groups suggest that civilian casualties due 
to AMISOM operations have increased recently. Does the State Department 
consider these allegations to be valid? How does the State Department 
go about validating or invalidating such reports? How is the AU 
responding?

    Answer. We are deeply concerned regarding reports of civilian 
casualties. While we would be hesitant to support a generalized 
statement that civilian casualties have increased recently, and would 
prefer to comment on specific alleged incidents when discussing 
validity, there are credible reports of civilian casualties caused by 
AMISOM. We take all such claims very seriously, and seek to validate 
them to the best of our ability. Sources used to establish the validity 
of such reports include NGO reporting, media sources, Somali officials 
and interlocutors, sensitive internal U.S. government reporting, 
discussions with African Union leadership, and discussions with our 
AMISOM partners themselves.
    We saw AMISOM take positive steps in regard to accountability in 
reaction to the killing of civilians by AU forces in the town of Merka 
on July 31, 2015. AMISOM engaged in an investigatory process that 
resulted in the indictment of three Ugandan AMISOM personnel for these 
killings. We will continue to urge the AU and TCCs to investigate all 
reported civilian deaths, and to hold perpetrators accountable for 
human rights and international humanitarian law violations.

                               __________

Responses of Kelly Keiderling-Franz, Nominated to be Ambassador to the 
    Oriental Republic of Uruguay, to Questions from Members of the 
                               Committee

           ambassador-designate keiderling-franz's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, I have advocated for democratic 
institutions, for freedom of speech, of opinion, of assembly and of 
religion, and have defended human rights. During my assignment in 
recently independent Kyrgyzstan, for example, we organized exchanges to 
highlight good governance, the workings of a free press, and the 
relationship between the state and organized religion. In Cuba, we 
explained U.S. elections and specifically the value of free, 
responsible media work. In Venezuela, my team and I met regularly with 
pro-democracy activists, independent media, and human rights workers to 
understand and give voice to their concerns, and to advocate in favor 
of the universality of political-civil rights and equal treatment for 
all people.

    Question. What are the most pressing human rights issues in 
Uruguay? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Uruguay? What do 
you hope to accomplish through these actions?

    Answer. Uruguay is one of the most ardent supporters of human 
rights in the Western Hemisphere. In fact, Uruguay is consistently 
ranked as the top country in the region for the protection of LGBT, 
civil, and political rights. Uruguay has held the top spot in social 
inclusion for three years running in the Americas Quarterly Social 
Inclusion Index. Impressive as Uruguay's human rights record is, there 
is still work to be done. Human trafficking in and through Uruguay 
continues to be a concern, as is discrimination against Afro-
Uruguayans.
    If confirmed, I would continue to support the Uruguayan 
government's efforts to combat human trafficking and racial 
discrimination. I would encourage the Government of Uruguay to 
vigorously investigate, prosecute, and convict human traffickers; to 
pass and enact a comprehensive anti-trafficking law; to increase 
funding for and the provision of protection and specialized services 
for all victims of trafficking, especially shelters; and to improve 
data collection on anti-trafficking law enforcement efforts. I would 
engage the Afro-Uruguayan population, seek way to develop civil society 
structures, and work with the Government of Uruguay to address 
discrimination.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Uruguay in 
advancing human rights, civil society and democracy in general?

    Answer. I understand there are several obstacles in overcoming 
human trafficking and discrimination in Uruguay. Although upgraded to 
Tier 2 from Tier 2 Watch List in the 2015 Trafficking in Persons 
Report, Uruguay still faces significant national hurdles in curtailing 
human trafficking and does not fully comply with the minimum standards 
for the elimination of trafficking. The Uruguayan government is making 
significant efforts to comply with these standards. The lack of 
accurate data on trafficking investigations, prosecutions, and 
convictions makes it difficult to assess the government's overall anti-
trafficking law enforcement efforts. Government funding for victim 
services, particularly housing, continues to be inadequate. The 
Government of Uruguay could continue to improve its anti-trafficking 
efforts through more accurate data collection and the expansion of 
government funding for and provision of victim services.
    Despite the Government of Uruguay's efforts to combat racial 
intolerance, Afro-Uruguayans continue to face discrimination. Uruguay's 
Afro-Uruguayan minority, estimated to be eight percent of the 
population, has historically faced discrimination and is 
underrepresented in government, academia, and in the middle and upper 
echelons of the private sector. If confirmed, I would continue to 
advance U.S. Embassy Montevideo's social inclusion programs, including 
targeted outreach to the Afro-Uruguayan community and helping the 
community gain 21st century skills for economic advancement.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the United States 
and with local human rights NGOs in Uruguay? If confirmed, what steps 
will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Creating relationships with leaders in human rights, civil 
society, and NGOs is necessary for any diplomat to be truly effective. 
If confirmed, I would engage both U.S. and Uruguayan civil society 
leaders and make the advancement of human rights and social justice a 
pillar of our bilateral relationship. I would also commit to applying 
the Leahy Law to our security assistance and cooperation activities.

    Question. Will you and your embassy team actively engage with 
Uruguay to address cases of key political prisoners or persons 
otherwise unjustly targeted by Uruguay?

    Answer. Since return to civilian rule in 1984, Uruguay has 
accomplished one of Latin America's most successful transitions to 
democracy. Uruguay ranks high in good governance, openness, and the 
rule of law. Freedom House gave Uruguay a 98 out of a 100 score in 
their 2016 Freedom in the World Report. Uruguay does not have political 
prisoners. If confirmed, I would lead the embassy team in working with 
Uruguay on regional human rights issues, including political prisoners.

    Question. Will you engage with Uruguay on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Uruguay plays a leadership role in regional and 
international institutions and has been a vocal advocate for democratic 
governance in the Western Hemisphere. If confirmed, I would further 
engage Uruguay to protect human rights in the region and advocate on 
behalf of democratic governance.

    Question. President Vazquez and his administration have shown 
important leadership on issues of human rights and democracy in the 
region. He joined President Obama at the Summit of the Americas in a 
meeting with Cuban activists. And, his administration has expressed its 
concern about the political, economic, and humanitarian crisis in 
Venezuela. What steps will you take to work with President Vazquez and 
his government on these critically important issues?

    Answer. Uruguay willingly plays a leadership role in regional and 
international institutions and is a vocal advocate for democratic 
governance in Latin America. Uruguay's former foreign minister, Luis 
Almagro, is currently Secretary General of the OAS and is outspoken in 
defending the principles of the Inter-American Democratic Charter and 
universal human rights in OAS member states, most notably Venezuela. 
Acting in its current role as President pro tempore of UNASUR, Uruguay 
negotiated and implemented the sole electoral ``accompaniment'' mission 
sanctioned by the Venezuelan government for its December 6 legislative 
elections. If confirmed, I would continue to work with the Uruguayan 
government to address issues of human rights and democratic governance 
throughout the hemisphere.

    Question. Now that Uruguay has a temporary seat on the U.N. 
Security Council, how can the United States better cooperate with 
Uruguay on these issues?

    Answer. In January 2016, Uruguay assumed a non-permanent, two-year 
seat on the U.N. Security Council for the first time in 50 years. 
During this term, Uruguay represents the Latin America and Caribbean 
Group. Uruguay simultaneously became Chair of the UNSC for the month of 
January.Uruguay's priorities for its 2016-2017 term include 
peacekeeping issues--particularly protection of civilians (PoC)--
conflict prevention, and issues affecting Uruguay's geographic region, 
like supporting Colombia and Haiti. As UNSC chair, Uruguay has hosted 
open debates on the PoC theme and on the Middle East. Uruguay continues 
to play an outsized leadership role in U.N. peacekeeping as the largest 
contributor of peacekeeping forces in Latin America and host of the 
regional U.N. peacekeeping conference in May 2015. These priorities 
coincide with American values and policies and present an opportunity 
to work with Uruguay on issues of mutual interest. If confirmed, I 
would work with Uruguay on these and other issues on the global agenda, 
especially on multilateral efforts to prevent and resolve international 
conflicts and oversee peacekeeping initiatives.

    Question. As you know, Uruguayan contributions to U.N. peacekeeping 
missions such as those in the Democratic Republic of the Congo and 
Haiti have been of tremendous value within the international community. 
In your view, how else can the United States and Uruguay continue to 
cooperate on foreign policy issues of mutual interest?

    Answer. The United States appreciates the significant contribution 
Uruguay makes to global peacekeeping operations. With over 1,400 
peacekeepers deployed, Uruguay is the second-largest Latin American 
contributor to peacekeeping operations. Uruguay's leadership in the 
region includes joint-deployment agreements with other countries and 
leadership training at its national peacekeeping school. If confirmed, 
I hope to work with the Uruguayan government in facilitating U.N. 
peacekeeping missions.Uruguay also hosted a regional peacekeeping 
preparatory conference in May 2015 and President Vazquez co-hosted with 
President Obama a Leaders' Summit on Peacekeeping at UNGA in September 
2015. If confirmed, I would seek opportunities to advance these global 
conversations, as well as continue current U.S. efforts to support the 
Uruguayan military in peacekeeping operations.

    Question. Since taking office for a second term, President Vazquez 
has expressed his desire to continue forging closer relations with the 
United States by strengthening and building upon the various bilateral 
cooperation mechanisms that are currently in place. If confirmed, what 
do you consider to be key priorities to strengthen the bilateral 
relationship with Uruguay?

    Answer. Our bilateral relations with Uruguay are strong and rooted 
in common values. In recent years, we have made great progress 
deepening the relationship through cooperation on political, economic, 
and defense issues, as well as through educational and cultural 
exchanges. With its strong democratic processes and respect for 
fundamental freedoms, Uruguay is a model for the region and the world. 
If confirmed, I would look to strengthen our already robust bilateral 
relationship with Uruguay.
    Peacekeeping operations is one priority of the bilateral 
relationship. The United States appreciates the significant 
contribution Uruguay makes to global peacekeeping operations. Uruguay 
is the second-largest Latin American contributor of peacekeepers to 
U.N. missions and co-hosted the U.N. Summit on Peacekeeping in 
September 2015. If confirmed, I would continue our close cooperation 
with Uruguay on U.N. mission support for peacekeeping and protection-
of-civilians issues.
    Bilateral trade with Uruguay is steadily expanding, totaling over 
$2 billion in 2014, with U.S. exports to Uruguay reaching $1.6 billion. 
There are approximately 130 U.S. companies operating in Uruguay with 
more than 20,000 employees. The United States is the fourth largest 
investor in Uruguay and U.S. investment increased significantly in the 
past decade to its current $1.3 billion total. If confirmed, I would 
ensure a level playing field for U.S. corporations conducting business 
in Uruguay. I will also look to identify new opportunities for trade 
and investment for U.S. companies in Uruguay.

                               __________
           ambassador-designate keiderling-franz's responses 
                    to questions from senator rubio

    Question. El Pais newspaper has reported that radical Islam in 
Uruguay is a ``growing problem.'' According to news reports there have 
been threats to the Israeli embassy in Montevideo. There was also a 
confirmed case of a Jewish individual who was stabbed by an Islamic 
radical. If confirmed, how would you address this growing problem in 
Uruguay?

    Answer. Uruguayan security services investigated several suspicious 
packages found in the vicinity of the office building in which the 
Israeli embassy is located in Montevideo. Uruguayan authorities are 
also investigating the recent stabbing of a member of Uruguay's Jewish 
community, including working to determine whether the stabbing was a 
terrorist attack or a hate crime. These cases are disturbing, merit 
attention, and are contrary to Uruguay's long-standing tradition of 
tolerance. If confirmed, I will work with the Uruguayan government to 
address any instances of violent extremism and hate crimes, including 
through law enforcement information-sharing and training.

    Question. Multiple Senators have requested information concerning 
the six former Guantanamo Bay detainees who were transferred to 
Uruguay. Despite repeated briefings the administration has yet to 
provide the requested information in writing on the specific 
commitments the Government of Uruguay made concerning the monitoring of 
the former detainees.

  <diamond> Please provide all requested information on what specific 
        agreements were made between the United States Government and 
        Government of Uruguay on monitoring the former detainees.
  <diamond> Also, when will the former Guantanamo Bay detainees be 
        eligible for documents that will allow them to travel outside 
        of Uruguay and beyond Mercosur?

    Answer. The Department appreciates Congress's important oversight 
responsibilities on these transfers and is committed to providing 
information to enable the Foreign Relations Committee to perform that 
function. We would be happy to brief you and your staff on any 
outstanding questions you may have. That said, the Department across 
two administrations has consistently informed Congress, and represented 
to U.S. courts, that disclosing these diplomatic assurances would have 
a chilling effect on foreign governments' willingness to cooperate on 
detainee transfers.
    Accordingly, these sensitive diplomatic communications, containing 
foreign government information, are kept to a limited Executive branch 
dissemination. Indeed, foreign governments have noted that disclosure 
outside of this limited dissemination could endanger future cooperation 
related to detainee transfers, which would harm cooperative efforts to 
mitigate any threat posed by transferred detainees.I understand that 
the Department and Embassy Montevideo are working closely with the 
Uruguayan government on security and other issues surrounding these 
detainees. If confirmed, I would continue to work with the Government 
of Uruguay to ensure the long-term success of these efforts. I would 
also work with the Department to keep your office informed of 
developments regarding the detainees.

                               __________
           ambassador-designate keiderling-franz's responses 
                    to questions from senator perdue

    Question. Please briefly describe your vision for taking on a new 
role as the U.S. Ambassador to Uruguay. What are your priorities and 
goals? What challenges do you foresee?

    Answer. Our bilateral relations with Uruguay are strong and rooted 
in common values. In recent years, we have made great progress in 
deepening the relationship through cooperation on political, economic, 
law enforcement, and defense issues, as well as through educational and 
professional exchanges. With its strong democratic processes and 
respect for fundamental freedoms, Uruguay is a good model for the 
region and the world.
    If confirmed, I would increase economic prosperity for U.S. 
citizens and Uruguayans through trade and investment, the promotion of 
renewable energy technologies, educational exchanges, and 21st century 
skills such as entrepreneurship, English language, and scientific 
research to provide opportunities for our youth.
    If confirmed, I would expand global security in partnership with 
Uruguay, supporting Uruguayan international peacekeeping operations and 
our joint law enforcement and rule-of-law goals in fighting drug 
smuggling and human trafficking, countering violent extremism, stopping 
illicit financial flows, sharing information on international criminal 
networks, and working together on cyber issues.
    In seeking to defend human rights and advance democratic 
governance, I would work together with Uruguay to defend international, 
democratic norms; advocate for universal freedoms; and advance social 
justice in our hemisphere and globally.

    Question. How do you feel your past experience, as well as your 
current position as Principal Deputy Assistant Secretary for the Bureau 
of Educational and Cultural Affairs have prepared you to take on this 
new role?
    As a Foreign Service Officer since 1988, with a sub-specialty in 
public diplomacy, I have successfully promoted U.S. interests and 
values on three continents, helped shape decisions and policies in 
various offices at the State Department, advocated U.S. policies to 
foreign audiences, built and led diverse embassy teams, and, in the 
Bureau of Educational and Cultural Affairs, managed a team of almost 
500 people and a budget of almost $600 million. I have served as deputy 
chief of mission twice, including as charge d'affaires during a 
complicated time in Venezuela. With previous service in eight 
embassies, I have experience on a range of foreign policy issues, from 
defending human rights and explaining the role of the free press, to 
creating a level playing field for U.S. companies and advocating for 
environmentally sustainable economic policies.

    Question. Uruguay was the first Latin American country to offer 
full resettlement to Syrian refugees, and they accepted 42 Syrians in 
late 2014. However, due to the extremely small Muslim population in 
Uruguay, some say these refugees have struggled to successfully 
integrate despite receiving housing, healthcare, education, and 
financial support. If confirmed, would you engage with the refugee 
population? If so, how? How do you recommend the government improve 
relations with its refugee population?

    Answer. We appreciate Uruguay's commitment to accept five Syrian 
families, 42 people in total, for resettlement in October 2014. While 
the Uruguayan government has faced challenges meeting the needs of 
these families, it pledged to provide these families two years of 
housing, health and educational assistance, and Spanish courses. 
Additionally, in 2015, the Embassy supported an International Visitor 
Leadership Program for Uruguayan officials on the topic of refugee 
resettlement. If confirmed, I would look for additional ways to support 
the integration of the refugees into the Uruguayan population and make 
the case for assistance to support the very large, global population of 
refugees and displaced persons.

    Question. In its 2015 Trafficking in Persons Report, the U.S. State 
Department rated Uruguay a Tier 2 country, stating that the Uruguayan 
government ``does not fully comply with the minimum standards for the 
elimination of trafficking.'' Do you agree with the State Department's 
assessment? How would you recommend engaging with the government to 
influence change on this front?

    Answer. Uruguay was ranked Tier 2 in the 2015 Trafficking in 
Persons (TIP) Report, which means that the Government of Uruguay does 
not fully comply with the minimum standards for the elimination of 
trafficking, but it is making significant efforts to do so. The State 
Department's assessment reflects that while the Government of Uruguay 
has taken important steps to combat human trafficking, including 
identifying and assisting an increased number of potential foreign sex 
trafficking victims and achieving the country's first reported 
conviction for labor trafficking, much work remains to be done.
    If confirmed, I would encourage the Government of Uruguay to 
vigorously investigate, prosecute, and convict traffickers; to pass and 
enact a comprehensive anti-trafficking law; to increase funding for 
protection and specialized services for all victims of trafficking; and 
to improve data collection on anti-trafficking law enforcement efforts.
    I would also carefully oversee the implementation of a new, three-
year State Department counter-trafficking project. This project would 
create three regional counter-trafficking committees outside the 
Uruguayan capital. These committees would work to promote political 
will and boost the commitment to counter trafficking from local 
governmental authorities--including strengthening the knowledge and 
skills of key stakeholders on how to screen, identify, refer and assist 
victims of trafficking. The project would also establish a network 
among representatives of these committees to coordinate efforts 
nationally.

    Question. Uruguay suffered serious economic crisis between 1999 and 
2002 due to spillover economic problems in Argentina and Brazil. Those 
same nations again are facing economic hardship this year. To what 
extent does the Uruguayan economy remain vulnerable to regional 
economic instability? What is your assessment of the Vasquez 
administration's efforts to address Uruguay's slowing economic growth?

    Answer. Since the economic crisis from 1999 until 2002, Uruguay has 
taken steps to diversify its economy. Uruguay avoided a recession in 
the wake of the global financial crisis. Strong commodity prices played 
a large role in Uruguay's economic success, but its economy also 
benefits from transparency and a strong legal framework.
    However, Uruguay remains vulnerable to regional instability as 
Argentina and Brazil remain major investment and trading partners. 
Following the 2002 crisis, Uruguay implemented numerous measures to 
reduce exposure to its neighbors. It greatly improved its debt 
management, significantly strengthened its banking sector, diversified 
its exports markets, and expanded its service sector to further 
diversify the economy.
    Uruguay's economy has cooled significantly, with estimated growth 
of about 1 percent for 2015 and 2016. The IMF expects Uruguay to 
perform better than its neighbors in the coming year. The Vazquez 
administration has developed a significant cushion of international 
reserves and is pursing policies to boost trade and investment, 
implementing a major public investment plan and trimming government 
spending. It has also made advancing trade and commercial discussions 
with Chile, Colombia, Peru, and Mexico a priority, with an eye toward 
integration with the Pacific Alliance and other trade blocs.
    President Vazquez is interested in expanding trade and investment 
with the United States. Uruguay's strategic geographic location and 
business-friendly trade regimes, including free trade zones, make it a 
good distribution center for U.S. exports into the region. Within the 
framework of the National Export Initiative (NEI), Uruguay can play an 
important role in assisting and facilitating U.S. exports to the much 
larger surrounding markets of Argentina and Brazil. Moving forward, 
Uruguay represents a significant opportunity in diverse areas such as 
petroleum and natural gas, renewable energy, tourism, education, and 
other services for U.S. companies.

    Question. Do the six men formerly detained at Guantanamo Bay who 
were granted refugee status by Uruguay pose any threat to the United 
States or its citizens? Are there any mechanisms in place to monitor 
the former detainees or prevent their travel outside of Uruguay?

    Answer. In 2009-2010, a rigorous interagency process reviewed all 
reasonably available information concerning the detainees at Guantanamo 
Bay and determined that some detainees--including the six transferred 
to Uruguay--should be transferred subject to appropriate security 
measures. An interagency Task Force assembled large volumes of 
information from across the government relevant to determining the 
proper disposition of each detainee. Task Force members examined this 
information critically, giving careful consideration to the threat 
posed by the detainees, the reliability of the underlying information, 
and the interests of national security.
    U.S. government officials undertook detailed, specific 
conversations with Uruguay about the potential threat that each 
detainee under consideration for transfer to Uruguay may pose after 
transfer and the measures that Uruguay would take in order to 
sufficiently mitigate that threat, and to ensure humane treatment. 
After receiving assurances from the Government of Uruguay, 
representatives from the Departments of State, Defense, Justice, 
Homeland Security, Joint Chiefs of Staff, and the Office of the 
Director of National Intelligence unanimously concurred in the transfer 
of the six detainees to Uruguay. This decision reflected the best 
predictive judgment of senior government officials that any threat that 
may be posed by the detainee could be sufficiently mitigated through 
feasible and appropriate security measures in Uruguay.
    Now that the detainees are in Uruguay, I understand that the 
Department and Embassy Montevideo work closely with the Uruguayan 
government on a range of issues surrounding the detainees, including 
matters related to the security of the United States. If confirmed, I 
would continue that close cooperation with the Government of Uruguay to 
ensure the long-term success of these efforts. I would also work with 
the Department to keep Congress informed of developments regarding the 
detainees. As has been the Department's practice, we would be happy to 
brief you and your staff on any outstanding questions you may have.

                               __________

  Responses of Mark Sobel, nominated to be Executive Director of the 
International Monetary Fund for a Term of Two Years, to Questions from 
                        Members of the Committee

                 director-designate sobel's responses 
                    to questions from senator corker

    Question. The IMF Executive Board recently approved a rule change 
that appears to allow for exceptional access loans when debt is not 
sustainable with high probability under the meaning of the original 
exceptional access program and there is no contagion risk, if the Board 
finds there is re-profiling of a borrower's debt. The new policy 
further allows, in ``tail event cases,'' the ability to forgo 
reprofiling if the risk of contagion is high and other official 
creditors' terms are sufficiently flexible. Presumably, under the new 
policy, those creditors might not even be required to make any 
concessions. For example, the IMF notes that:

          In these rare cases, the IMF could still provide large-scale 
        financing without a debt operation, but would require that its 
        official partners also provide financing on terms sufficiently 
        favorable to backstop debt sustainability and safeguard IMF 
        resources. This could be done through assurances that the terms 
        of the financing provided by other official creditors could be 
        modified in the future if needed.

    While flexibility is important, please explain how the new policy 
for exceptional access lending upholds the intent of the second 
exceptional access criterion (high probability of debt sustainability), 
particularly in ``tail event'' cases. What kinds of ``assurances'' 
would be acceptable so as to allow for lending to occur and how would 
those assurances be enforced?

    Answer. In mid-January of this year, the IMF Executive Board 
adopted Managing Director Lagarde's proposed reforms to the IMF 
provisions for exceptional access to Fund resources. A key aspect of 
these reforms was the elimination of the ``systemic exemption'' by 
which exceptional access could be provided when there was a high risk 
of international systemic spillovers despite significant doubts 
regarding the prospects for debt sustainability. Subsequent to the 
repeal of the systemic exemption, the United States consented to the 
2010 IMF quota and governance reforms, doubling IMF quota resources and 
confirming our commitment to the IMF.
    In putting forward the proposal, the Fund was concerned that 
requiring a debt restructuring in the case of a country with debt that 
was not sustainable with a high probability could be highly disruptive 
to the member and its creditors. In such cases, the Fund indicated it 
could stand ready to provide exceptional access if the country secured 
participation from its creditors on terms that would improve its debt 
sustainability and enhance safeguards for Fund resources through, for 
example, market borrowing if the country still had market access, debt 
reprofiling, agreements by creditors to maintain exposures, or the 
extension of bilateral assistance.
    This is a clear departure from the systemic exemption which did not 
address debt sustainability concerns or provide safeguards for IMF 
lending. If I am confirmed as Executive Director, I will look closely 
at any such loans to ensure they do not prolong an unsustainable debt 
situation in a country and ensure the safety of the U.S. investment in 
the IMF. I will also work with Treasury to provide Congress timely 
notification and justification of our position on proposed exceptional 
access loans consistent with legislation.
    As you note, the Management's policy proposal allows the IMF some 
flexibility, particularly in the case of a tail-risk event. In these 
rare cases, exceptional access loans could be provided by the IMF only 
if accompanied by financing from other official creditors. Moreover, 
financing from these other creditors must be provided on terms 
sufficient to backstop debt sustainability and safeguard IMF resources.

                               __________
                 director-designate sobel's responses 
                    to questions from senator cardin

    Question. IMF Reform: The United States championed the 2010 IMF 
quota and governance reforms, but Congress didn't approve them until 
December of last year. Last year we heard from IMF Managing Director 
Lagarde that the delay was seriously affecting the IMF.


  <diamond> Has this had any lingering effect on U.S. leadership in the 
        IMF?

  <diamond> Can you explain how increasing emerging market 
        representation at the IMF serves U.S. interests?

    Answer. Emerging markets are playing an increasingly prominent role 
in the global economic and financial landscape. Their weight in the 
global economy has increased substantially to near or over half 
(depending on the measure), and they have accounted for the bulk of 
growth in the last decade.
    The IMF provides a multilateral framework for the global economy. 
Regionalism will always exist--the United States trades heavily with 
Mexico and Canada due to their proximity. But it is clearly in the U.S. 
interest to bind all countries in the world into the multilateral 
framework, of which the IMF is at the center, especially as the United 
States helped to create the Fund and establish its values. In that 
regard, the Fund has consistently from its inception supported U.S. 
economic and strategic interests.
    We cannot bind countries into the multilateralist framework if the 
Fund is not modernized to reflect the evolution of the world economy. 
If we are unable to modernize the Fund and accord emerging markets a 
stronger voice, they will drift away from multilateralism and instead 
emphasize regional solutions which could be detrimental to U.S. 
interests. While there is no dearth of infrastructure needs in the 
world, we saw such drift to some extent reflected in the creation of 
the AIIB, Silk Road, and the BRICs Bank.
    For the past decade, the United States has consistently supported 
the emerging markets carrying a greater weight in the IMF. The United 
States spearheaded the launch of quota and governance reforms in 2006-
2008 under the Bush administration, and the Obama administration 
continued to do so in 2009 at the G20 Pittsburgh Summit and then in 
finalizing the 2010 reforms. The United States garnered tremendous 
goodwill in the IMF from the emerging markets for these policies. 
However, the long delays in implementing the 2010 reforms meant that 
the United States lost much of this goodwill and created doubts about 
America's willingness to lead the IMF. The United States is working to 
earn back this trust. On the positive side, U.S. financial diplomats no 
longer have to attend international economic and financial meetings 
with this cloud hanging over their heads, and are able to speak more 
forthrightly about a positive U.S. agenda. However, this goodwill 
cannot be regained overnight. Earning it back will require strong and 
consistent cooperation in the coming years between the Executive and 
Legislative branches.

    Question. EU Financial Crisis and IMF Reforms: Since the beginning 
of the financial crisis in 2009, eleven European countries have entered 
into financial assistance programs with the IMF, with commitments over 
$150 billion.


  <diamond> How has this affected the IMF's resources and capacity to 
        respond to other crises?

  <diamond> Where is the IMF confronting its most serious challenges 
        among those countries?

  <diamond> If confirmed, are there any aspects in particular of the 
        IMF's mandate and/or procedures that you believe merit review 
        and possible reform?


    Answer. The Fund's actions in addressing the key European crisis 
countries, such as Greece, Ireland and Portugal-even as Europe assumed 
the lion's share of the financing-were indispensable for restoring 
stability to the global economic and financial system, including 
preventing potentially serious contagion from reaching U.S. shores.
    The Fund's actions did put pressure on the IMF's quota resources, 
which were substantially drawn down. However, given the expansion of 
the New Arrangements to Borrow (NAB) decided at the April 2009 G20 
London Economic Summit, the IMF was also able to draw down resources 
from the NAB to readily backstop these commitments. Following 
Congressional approval of the 2010 IMF quota and governance reforms, 
IMF quota resources have doubled and the NAB has returned to its role 
as a an emergency backstop.
    Countries such as Ireland and Cyprus are now on the road to 
recovery, and Cyprus is benefitting from IMF technical assistance as 
the leaders of the two communities on the island negotiate a potential 
reunification of the island. Iceland and Latvia are notable success 
stories. Hungary is no longer in need of Fund support, as is the case 
with other Central and Eastern European countries. Spain strengthened 
its banking system with European funds and IMF technical support. 
Portugal continues to face large debt and slow growth, but has adopted 
numerous reforms and is not facing market stresses. Notably, both 
Ireland and Portugal have made payments ahead of schedule on their 
exceptional access loans from the Fund.
    Obviously, the situation in Greece remains the most challenging, 
both for Europe and the IMF. Europe and the IMF are seeking to design 
an economic program for Greece that established a road to 
sustainability and growth, built on Greek reforms, appropriate 
conditionality and necessary debt relief from Europe. Working out the 
scope and magnitude of the policy reforms and debt relief involves 
trade-offs, which are still being discussed. The United States 
continues to urge Greece to stay on the path of reform as well as the 
Europeans and IMF to work closely together in designing a reform path 
with strong European debt relief, in order to help restore growth and 
jobs in the Greek economy.
    Throughout my career, I have seen first-hand the IMF's strengths. 
Its ability to act as the world's first and rapid crisis responder is 
an unparalleled global public good, as is its excellence in designing 
and supporting country reform programs. The IMF brings together 
officials from around the world, creating a culture of shared 
understanding. It fosters multilateral rules of the road. Its technical 
assistance helps countries build the infrastructure for more robust 
economic policies. The IMF's surveillance can help prevent crises.
    But despite the Fund's strengths, the organization--like any 
other--has room for improvement, for example, in better analyzing and 
articulating policies to tackle modest global growth, addressing global 
rebalancing and exchange rate issues, strengthening its work on crisis 
prevention and debt sustainability, supporting pro-poor spending in low 
income countries, and helping make financial sectors more resilient. In 
addition, corruption can be extremely corrosive to societies and 
economies--the Fund should strengthen its engagement, consistent with 
its mandate, in combating corruption.

    Question. China and the IMF: With the yuan set to become part of 
the SDR basket of currencies, what are the advantages and costs to 
China of that new status?

    Answer. For inclusion in the SDR basket, China needed to meet the 
criteria of being a large exporter (which it met handily) and a country 
whose currency was widely used and traded in principal global exchange 
markets. On the financial criteria, the RMB's international financial 
role is still very modest, but it is rising off of a low base. As part 
of the process of entry into the SDR basket, China put forward a number 
of helpful reforms--it joined the IMF's Special Data Dissemination 
Standard (SDDS), began to provide data on cross-border financial 
activities to the Bank for International Settlements and report the 
currency breakdown of its reserve holdings to the IMF, started weekly 
T-bill auctions to establish a market-determined interest rate, opened 
the onshore market to global central banks, and expanded the hours for 
RMB trading to allow the RMB to be more widely traded worldwide.
    As such, China's entry into the SDR basket helped spur financial 
reform in China. Its entry is reflective of the broader need for 
reforms to liberalize the Chinese economic and financial system, and 
shift resources from a heavily driven investment economy, which 
emphasizes the role of state owned enterprises, to an economy driven by 
consumers and services. Many of the strongest advocates for economic 
liberalization in China saw the RMB's entry into the SDR basket as a 
means of spurring reform.
    The financial reforms China undertook to join the SDR basket, as 
well as the reforms it is implementing more generally, will help 
integrate China more closely into the global economic and financial 
system--and its multilateral rules--going forward. Further, these 
reforms will create pressures for more liberalization and reform, as 
well as integration into the global economy. These are positive 
developments. However, as much as one hopes financial liberalization 
will proceed seamlessly and smoothly, bouts of volatility and 
spillovers to the rest of the global economy can be expected.
                 director-designate sobel's responses 
                    to questions from senator perdue

    Question. Please briefly describe your vision for taking on a new 
role as the U.S. Executive Director to the International Monetary Fund 
(IMF).

    Answer. Throughout my career, I have seen first-hand the IMF's 
strengths. Its ability to act as the world's first and rapid economic 
and financial crisis responder is an unparalleled global public good, 
as is its excellence in designing and supporting country economic 
reform programs. The IMF brings together officials from around the 
world, creating a culture of shared understanding and responsibility. 
It fosters multilateral rules of the road. Its technical assistance 
helps countries build the infrastructure for more robust economic 
policies. The IMF's surveillance can help prevent crises.
    But despite the Fund's strengths, the organization--like any 
other--has room for improvement, for example, in better analyzing and 
articulating policies to tackle modest global growth, addressing global 
rebalancing and exchange rate issues, strengthening its work on crisis 
prevention and debt sustainability, supporting pro-poor spending in low 
income countries, and helping make financial sectors more resilient. I 
also believe that the IMF, consistent with its mandate, should 
aggressively tackle corruption and promote good governance.
    I believe firmly in tenaciously defending U.S. interests and in 
advancing multilateralism, as well as in working pragmatically and 
collegially, with analytic rigor, and in a non-partisan manner. I also 
believe in the IMF's mission and that our nation's leadership of the 
IMF is critical. Those beliefs have guided my career.
    If confirmed as U.S. Executive Director, I will work vigorously to 
continue to strengthen and improve the IMF, consistent with those 
beliefs. I will dedicate myself to doing my utmost to work with 
Congress to help forge a stronger consensus in our country in support 
of the IMF and its critical global role.

    Question. How do you feel your current position as Deputy Assistant 
Secretary of the Treasury for International Monetary and Financial 
Policy has prepared you to take on this new role?

    Answer. Throughout my career, I have worked on issues directly or 
indirectly relating to U.S. participation in the IMF, be it IMF policy 
and financing issues or country programs. I did so earlier in my career 
as the Director of the Treasury International Monetary Policy Office 
and theTransition Economy Office, and as the senior staff member of the 
U.S. Executive Director's Office at the IMF.
    As Deputy Assistant Secretary (DAS) for the International Monetary 
and Financial Policy, I played a pivotal staff role in overseeing U.S. 
relations with the IMF. Further, during the 2001 and 2009 transitions, 
I was designated to be the Acting head of Treasury's International 
Affairs Department, and in periods where senior officials left 
government, I also stepped in, frequently representing the United 
States at critical international gatherings, such as those of the G-7 
and G20 Deputies. I was also the principal G-20 financial negotiator on 
communiques for the United States, both for the White House and 
Treasury.
    These experiences gave me a strong background in understanding the 
technical functioning of the IMF and how to be a forceful advocate for 
the United States and effectively advance U.S. interests in the Fund. 
In all of these capacities, especially as DAS, I have worked in a 
nonpartisan manner with very senior Republican and Democratic 
officials, including Secretaries of Treasury. In particular, I worked 
closely with Secretaries Summers, O'Neill, Snow, Paulson, Geithner and 
Lew.

    Question. What is your assessment of the 2010 IMF reforms? Do these 
changes adequately address likely future risks, especially as the IMF 
may be considering large programs from commodity exporters dealing with 
the decline in oil prices?

    Answer. I believe that the 2010 IMF reforms were not only vital for 
the health and future of the organization, but also reaffirming the 
U.S. commitment to being a leader in the global financial system. The 
reforms helped put the Fund's finances on a more permanent footing, 
while also helping to modernize the institution to better reflect the 
realities of countries' weights in today's global economy. These 
reforms will help sustain the legitimacy of the Fund as they will give 
dynamic emerging markets, in particular, a greater stake and voice in 
the Fund, which should bind these countries more strongly into the 
IMF's multilateral framework, thus reducing tendencies to drift into 
regionalism.
    The global economy faces a number of risks, be it from slow global 
growth, a slowing Chinese economy, the fall in the price of oil and 
other commodity prices, financial volatility and stresses, as well as 
inadequate policy responses. These factors may result in added demands 
for Fund programs and resources in the future.
    The Fund's financial footing is strong and should allow it to 
effectively meet likely challenges facing the global economy.

    Question. Do you believe these reforms have benefitted the 
institution? If so, how? In your opinion, are other reforms needed? If 
so, which reforms? Please be specific.

    Answer. As discussed above in question 3, I do believe that the 
reforms have benefitted the institution for the reasons put forward.
    The Fund is a dynamic organization. It needs to reflect the 
realities of the global economic and financial system, especially the 
growing weight of dynamic emerging markets in the international 
monetary and financial systems. As the world economy evolves, there 
will be in time a need for further future evolution in the Fund's 
governance structure. In addition, as noted in question #1, there are a 
number of policy areas where I believe the Fund should intensify its 
focus in order to strengthen its performance. These include better 
analyzing and articulating policies to tackle modest global growth, 
addressing global rebalancing and exchange rate issues, strengthening 
its work on crisis prevention and debt sustainability, supporting pro-
poor spending in low income countries, and helping make financial 
sectors more resilient. I also believe that the IMF, consistent with 
its mandate, should aggressively tackle corruption and promote good 
governance.

    Question. Some analysts argue that the U.S.'s delayed action on the 
reform package has damaged U.S. leadership in the institution. Do you 
agree? How can the U.S. maximize its leverage in the IMF?

    Answer. The IMF provides a multilateral framework for the global 
economy that promotes stronger economic policies, supports trade, 
rejects competitive devaluations, and enhances standards for 
transparency. Regionalism will always exist--the United States trades 
heavily with Mexico and Canada due to their proximity. But it is 
clearly in the U.S. interest to bind all countries in the world into 
the multilateral framework, of which the IMF is at the center, 
especially as the United States helped create the Fund and establish 
its values. In that regard, the Fund has consistently from its 
inception supported U.S. economic and strategic interests.
    As noted in my response to question 4, we cannot bind countries 
into the multilateralist framework if the Fund is not modernized to 
reflect the evolution of the world economy. Rather, if we are unable to 
modernize the Fund and accord emerging markets a stronger voice, they 
will drift away from multilateralism and instead emphasize regional 
solutions, with lower standards, which could be detrimental to U.S. 
interests. While there is no dearth of infrastructure needs in the 
world, we saw such drift to some extent reflected in the creation of 
the AIIB, Silk Road, and the BRICs Bank.
    The United States has for the past decade consistently supported 
giving emerging markets greater weight in the IMF. The United States 
spearheaded the launch of quota and governance reforms in 2006-2008 
under the Bush administration, and the Obama administration continued 
to do so in 2009 at the G20 Pittsburgh Summit and then in finalizing 
the 2010 reforms. The United States garnered tremendous goodwill in the 
IMF from the emerging markets for these policies.
    However, the long delays in implementing the 2010 reforms meant 
that we lost much of this goodwill and created doubts about the United 
States's willingness to lead the IMF. The United States is working to 
earn back this goodwill. On the positive side, U.S. financial diplomats 
no longer have to attend international economic and financial meetings 
with this cloud hanging over their heads, and are able to speak more 
forthrightly about a positive U.S. agenda. However, this goodwill 
cannot be regained overnight. Earning it back will require strong and 
consistent cooperation in the coming years between the Executive and 
Legislative branches.

    Question. Oil prices have fallen by over 70% since mid-2014, 
straining the public financial sectors of major oil-exporting countries 
whose budgets depend on oil revenues. In your own words, please 
describe the IMF's approach to the drop in global oil prices.

    Answer. The Fund can play a critical role in helping countries 
address financial strains through its technical assistance, policy 
advice (surveillance) and conditional lending programs.
    The oil-export countries are not a homogeneous group. For example, 
some are countries with relatively small populations and large 
financial buffers; others are lower-income, more populated and more 
diverse economies. Obviously, the Fund's analysis and responses will 
need to be tailored to individual country circumstances.
    That said, the Fund has pursued several paths:


  <diamond> It has urged oil exporters--especially those countries with 
        sizable buffers that have relied heavily on oil revenues--to 
        diversify their economies and to develop more robust private 
        sectors, capable of creating jobs for relatively young 
        populations (especially as in the past, much of the demand for 
        job-seekers would have been reflected in rising governmental 
        payrolls).

  <diamond> It is offering its general macroeconomic policy advice--how 
        to manage fiscal, monetary, and exchange rate policies given 
        country circumstances.

  <diamond> It has strongly urged countries to take advantage of low 
        oil prices and reduce energy subsidization, which often places 
        costly strains on budgets, while providing targeted support to 
        the neediest to mitigate the impact of reduced subsidization.
  <diamond> In all countries, but especially in those cases where 
        countries are drawing down heavily on financial buffers 
        (central bank reserves, sovereign wealth funds) to finance 
        budget deficits, the Fund is encouraging comprehensive 
        budgetary reviews to find scope for saving and efficiencies, 
        while protecting social safety nets.

  <diamond> For countries needing technical support in managing their 
        economies in light of lower oil prices, the IMF is extending 
        its capacity building.

  <diamond> Of course, if countries need financial support, the Fund 
        stands ready to design economic reform programs, backed by the 
        IMF's resources.

    Question. Some oil-exporters, such as Saudi Arabia, Kuwait, and 
Russia, have been able to float the market downturn due to sizable 
buffers in their economies. However, other smaller or less stable 
nations such as Nigeria, Angola, Algeria, Venezuela, and Iraq face more 
immediate and difficult financial decisions. Does the IMF's approach to 
the global oil market downturn differ for nations in different economic 
circumstances relating to oil prices? If so, how? If not, should the 
approach differ?

    Answer. Oil exporting country circumstances do indeed vary 
considerably, and the IMF's approach to oilexporters does take into 
account the individual circumstances of countries, as it should. My 
response to question 6 addresses these issues.

    Question. Some low-income oil exporters had negative experiences 
with IMF programs since the 1980's and 1990's. Likewise, to date, few 
oil-exporters have turned to the IMF for financial assistance. Are they 
now hesitant to turn to the IMF, and does this pose a threat to 
economic stability in the global economy? Is it problematic if 
countries like Angola and Nigeria turn to the World Bank for budgetary 
support, as a way to potentially circumvent an IMF program? Or is the 
World Bank able to address these types of circumstances?

    Answer. So far, low-income oil exporting countries have not turned 
to the IMF. The reasons may differ per country, but many have chosen to 
draw down on buffers, implement budgetary measures at home, and/or rely 
on currency flexibility to act as a shock absorber. There may be 
concerns about ``stigma''--tapping the IMF--but it may also be that 
countries do not wish to implement the robust reform measures that the 
IMF might seek as part of a financial program.
    The efficacy of budget support depends in part on the health of the 
macroeconomic environment and proper economic incentives. Budget 
support should not serve to delay economic reform, though it can 
provide breathing space to cushion the impact of the adjustment. In 
these circumstances, strong IMF and World Bank collaboration is 
essential to ensure that where budget support is being extended, a 
satisfactory macroeconomic environment is in place. This is an area of 
core IMF expertise, and the IMF clearly assesses the adequacy of a 
macroeconomic environment for the efficacy of World Bank assistance.

    Question. In January 2016, the IMF's Executive Board removed the 
``systemic exemption", which allowed approval of large scale loans 
despite debt sustainability if there was a high risk that not providing 
financial assistance would have spillover effects. This exemption was 
effectively replaced by a ``reprofiling'' of countries' existing debts 
in order to keep existing creditors on board by extending debt 
maturities with little loss in market value. Do you feel this is an 
adequate replacement for addressing global economic emergencies?

    Answer. Europe appropriately provided the lion's share of the 
financing to Greece, Portugal and Ireland, but the use of the systemic 
exemption was extremely important in 2010. The situations in those 
countries could have created far greater and more widespread spillover 
and contagion effects to the global economy, including hurting the U.S. 
economy at the very time it was coming out of the financial crisis. 
Hence, exceptional support to quell possible global market pressures 
was warranted.
    By 2012, Europe had begun to build up firewalls to support EU 
members and guard against the further spreading of the crisis. The 
United States supported strong debt relief for Greece in 2012, and 
continues to urge Europe to do so now as well.
    Pursuant to the proposal put forward by IMF Management as part of 
the package eliminating the systemic exemption, there was concern that 
for a country whose debt was not sustainable with a high probability, 
requiring a debt restructuring could impose unnecessary costs on the 
member and its creditors. But the Fund also did not wish to be in a 
position in which it would carry a disproportionate financial burden, 
especially in the case that the country's debt sustainability 
subsequently deteriorated.
    Accordingly, Managing Director Lagarde's proposal required that in 
cases where debt was not sustainable with a high probability, the 
country should secure participation from its creditors on terms that 
would improve its debt sustainability and enhance safeguards for Fund 
resources. The Fund posited that these goals could be achieved through 
a number of means, including market borrowing if the country still had 
market access; debt reprofiling; maintenance of exposure/rollover 
arrangements; or the extension of official bilateral assistance.
    The proposals represent a significant tightening of the IMF's 
overall lending framework, aimed at reducing the role of discretion in 
the provision of exceptional access. The United States supported the 
entirety of the Managing Director's proposals.

    Question. Are you concerned about recent ``exceptional access'' at 
the IMF in which countries such as Greece and Ireland were able to 
receive loans significantly in excess of their financial contributions 
to the IMF? What justifies providing financing programs this large? How 
would you quantify the credit risk to the IMF of these programs? Does 
Congress adequately consider this risk when approving U.S. 
contributions to the Fund?

    Answer. My response to question 9 addresses the thinking behind 
exceptional access in 2010. In terms of the IMF and credit risk, it is 
worth noting that the Fund's balance sheet is rock solid and our claims 
on the IMF are fully secure. The Fund has demonstrated a good track 
record in designing programs, which safeguard the use of the Fund's 
resources. The Fund is regarded as the world's de facto preferred 
creditor. When the IMF draws resources from a creditor country to lend 
to a borrower, the creditor is not exposed to the borrower, but rather 
to the Fund's balance sheet. In addition to the above factors, the Fund 
has a capital cushion of over $20 billion, and it also has substantial 
gold holdings. Both Ireland and Portugal successfully completed their 
programs and have significantly reduced their outstanding obligations 
to the IMF through payments ahead of schedule.

    Question. As part of the 2010 reforms, the IMF Board of Governors 
agreed that the representation of emerging and developing economies at 
the IMF did not reflect their growing importance in the global economy, 
and 6% of total quotas and voting power will now be shifted to these 
emerging and developing market economies. Do you feel that an 
additional 6% in quotas is commensurate with the spirit of the reform? 
Should emerging and developing economies be responsible for a larger 
share of quotas, since they make up a large share of those countries 
receiving IMF assistance? How does this increase in the representation 
of emerging markets at the IMF serve U.S. interests?

    Answer. As I noted in my responses to questions 3 and 4, I believe 
that the 2010 IMF reforms were vital for the health and future of the 
organization. The reforms helped put the Fund's finances on a more 
permanent footing, while also helping to modernize the institution to 
better reflect the realities of countries' weights in the global 
economy.
    These reforms will help sustain the legitimacy of the Fund. They 
will give dynamic emerging markets, in particular, a greater stake and 
voice in the Fund, which should bind these countries more strongly into 
the IMF's multilateral framework, thus reducing tendencies to drift 
into regionalism. While there is no dearth of infrastructure needs in 
the world, we saw such drift to some extent reflected in the creation 
of the AIIB, Silk Road, and the BRICs Bank.
    Going forward, the Fund needs to remain a dynamic organization. It 
needs to reflect the realities of the global economic and financial 
system, especially the growing weight of dynamic emerging markets in 
the international monetary and financial systems. As the world economy 
evolves, there will be in time a need for further future evolution in 
the Fund's governance structure.

    Question. The 2010 reforms also changed the means by which 
countries choose IMF Executive Directors, with a new requirement that 
all Executive Directors be elected rather than appointed. This opens up 
the possibility that European nations could choose to consolidate their 
representation on the Executive Board. In your opinion, is this a 
positive or negative change for Board organization? What would the 
impact of consolidated representation mean for the IMF Executive Board? 
Might this threaten U.S. influence on the Board? Could other countries 
elect to join the United States' representative on the Executive Board 
and form a group constituency?

    Answer. The United States supported the proposal to allow 
``elected'' rather than ``appointed'' chairs in the IMF, precisely to 
create greater scope for consolidation of Board chairs--especially in 
Europe. Virtually all observers agree that Europe is overrepresented in 
the Fund, both in terms of chairs and shares. With regard to chairs, 
Europeans now lead eight of the IMF Board's 24 seats.
    Greater consolidation of European representation would not threaten 
U.S. leadership of the organization. The United States remains the 
Fund's largest shareholder and is able to present its views forcefully 
in the IMF Board. Europe already plays a critical role in the Fund and 
will continue to do so.
    The United States will retain its single seat. In fact, given the 
large U.S. share in the Fund, Board seating rules preclude the U.S. 
from having other countries join the U.S. chair.

    Question. One of the IMF's main duties is to monitor the economic 
and financial policies of its member countries. To what extent has the 
IMF, as it claims, increased transparency and accountability to both 
shareholders and loan-recipients?

    Answer. When I first worked on the staff of the U.S. Executive 
Director in the late 1990s, the IMF was a very opaque organization and 
virtually no documentation was shared outside the IMF. That is no 
longer the case.
    While publication of the bulk of IMF documents is on a ``voluntary 
but presumed'' basis, the overwhelming bulk of IMF documents are 
published. In recent years, more than 90 percent of member countries 
published the Article IV report, including a comprehensive summary of 
the Board discussion. Ninety-six percent of countries with an IMF 
program allowed publication of the program documents, and all 
exceptional access programs in the last decade have been published.
    The IMF also releases policy papers, typically immediately after a 
board meeting. In 2014, the Executive Board decided to reduce the lag 
for public access to most board meeting minutes from five to three 
years, while retaining the five-year lag only for discussions that 
involve IMF lending or a Policy Support Instrument. The minutes include 
verbatim transcripts of the board meeting. These trends are discussed 
in the following IMF report on Transparency, published August 25, 
2015--http://www.imf.org/external/pp/longres.aspx?id=4981.
    The Fund has also done a better job in recent years in reaching out 
to the media, civil society, and national parliaments. These are 
positive developments that the United States strongly encourages.

    Question. Some analysts assert that IMF surveillance, especially of 
advanced economies, is largely meaningless since the IMF has no means 
of acting on its analysis when a country is not an IMF borrower. Do you 
agree with this assertion? If so, do you think the IMF should have this 
power?

    Answer. IMF surveillance is one of the core mandates of the Fund. 
Pursuant to it, the Fund conducts an economic review of each of its 
members, mainly on an annual basis.
    The Fund's surveillance can provide useful analysis and insights 
and highlight risks to national policymakers on their domestic 
situations and policy choices, especially bringing to bear the Fund's 
global perspective and cross-country experiences. Indeed, often other 
Fund members have faced similar fiscal, monetary policy, and other 
challenges as the country undergoing a surveillance review, and 
developed policies to tackle such difficulties which might provide 
useful background for policymakers in the country being reviewed. 
Similarly, the surveillance reviews allow national policymakers to 
exchange views with the Fund and explain the reasoning behind various 
policies.
    While a country undergoing a surveillance review is sovereign and 
may choose not to follow the Fund's advice for any number of political 
or economic reasons, the surveillance process is invaluable 
nevertheless. The Executive Board meeting held to discuss the 
surveillance review provides additional scrutiny and peer pressure on 
member countries.

    Question. How might the IMF make its surveillance more effective in 
promoting better economic policies within member countries?

    Answer. Despite the Fund's strengths, the IMF has room for 
improvement. In particular, I believe the Fund's surveillance can be 
strengthened in terms of better analyzing and articulating policies to 
tackle modest global growth, addressing global rebalancing and exchange 
rate issues, strengthening its work on crisis prevention and debt 
sustainability, supporting pro-poor spending in low income countries, 
and helping make financial sectors more resilient. I also believe that 
the IMF can better tackle corruption and promote good governance.

    Question. The IMF proceeded with its 2010 bailout of Greece despite 
major concerns within the Fund over whether this loan would work. The 
United States supported this program. Does the IMF expect to 
participate in the third program for Greece, spearheaded by the 
Europeans?

    Answer. Europe and the IMF are now seeking to design and negotiate 
an economic program for Greece, combining Greek reforms and needed debt 
relief from Europe. Working out the scope and magnitude of the policy 
reforms and debt relief involves trade-offs, which are still being 
discussed by all parties. These discussions are ongoing, and whether 
and how they will be concluded is not now clear.
    Secretary Lew continues to urge Greece to stay on the path of 
reform, and the Europeans and IMF to work closely together in designing 
a reform path which both could support. The Secretary has further 
called for Europe to provide the lion's share of the financing and 
offer strong debt relief for Greece.

    Question. What are your views on China's Asian Infrastructure 
Investment Bank? How should the U.S. government engage with China and 
other emerging donors?

    Answer. There is no dearth of infrastructure needs facing the world 
economy and the AIIB can play a positive role in this regard. However, 
in doing so, it is critical that the AIIB meet the high quality 
multilateral standards that have been established in other multilateral 
development institutions.
    There are parallels with how China should engage the IMF and vice 
versa. The IMF is the world's leading multilateral institution, and the 
United States helped create the Fund and establish its values. In this 
regard, the Fund since its inception has supported U.S. economic and 
strategic interests.
    But for China and other emerging donors to feel as if they are part 
of the multilateral system, they must feel that the system is 
recognizing their growing role and weight. Otherwise, they may drift 
toward regionalist solutions, undermining multilateralism and the 
global institutions. This is one of the main reasons why Congressional 
passage of the 2010 reforms was so important and welcome.

    Question. Members of the IMF have committed to refraining from 
manipulating their exchange rates to gain an unfair trade advantage. 
However, the IMF has never publically cited a country for currency 
manipulation. Some argue this is because the IMF defines currency 
manipulation inaccurately. Others argue currency manipulation should 
not be the purview of the IMF. Do you think currency manipulation is a 
problem? What role do you think the IMF should play in addressing 
currency manipulation?

    Answer. The IMF was created against the backdrop of protectionism 
and beggar-thy-neighbor currency policies in the 1930s to promote 
growth and international monetary cooperation and avoid such disastrous 
policies.
    The President has clearly and often stated that no country should 
be allowed to grow its exports on the basis of a persistently 
undervalued currency. Much progress has been made through U.S. 
bilateral diplomacy and through our leadership in multilateral fora 
such as the G-20 and IMF.
    With respect to the Fund, its technical analysis on exchange 
markets and global imbalances has improved in recent years. For 
example, its World Economic Outlook has increasingly covered the 
pattern of global payments developments, and the staff has developed an 
annual External Sector Report which delves into and assesses exchange 
rate valuations and underlying policies. External issues are 
increasingly covered in annual surveillance reports. These are helpful 
developments.
    Nonetheless, the IMF offers its staff and Management an important 
bully pulpit to speak out publicly and forcefully for currency 
flexibility and policies to reduce large current account surpluses. The 
Fund does so, but it could do a far better job in rendering crisp 
judgments on currency policies and using its voice and influence with 
far greater force.

                               __________

     Responses of Adam H. Sterling, nominated to be Ambassador to 
    the Slovac Republic, to Questions from Members of the Committee

               ambassador-designate sterling's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. During my career, I have consistently and ardently promoted 
human rights and democracy as a pillar of U.S. interests, several times 
serving in countries where these basic values were under threat or 
respect for them was going from bad to worse. I have also maintained 
professional contacts over the past two decades with representatives of 
leading international and U.S. human rights organizations, as well as 
with the Helsinki Commission.
    As the Human Rights Officer at one of my first postings, my 
reporting on a series of election-related abuses led to public 
expressions of concern from Washington that likely curbed some further 
abuses. My work won awards from the Bureau of Democracy, Human Rights 
and Labor as well as from my Embassy. The attention my work drew to 
election and other human rights abuses also buoyed the morale of, and 
perhaps gave a measure of protection to, local democracy and human 
rights advocates, some of whom praised my actions as evidence that the 
United States placed a higher priority on human rights than did any 
other country. My participation in reviewing draft legislation in this 
country, the preparation of which was not publicized, also enabled 
international scrutiny of a law that would have curbed religious 
freedom. My early warning about two such pieces of legislation gave 
senior officials in Washington and OSCE representatives a chance to 
weigh in against the legislation, and ultimately have both draft laws 
withdrawn before a vote in parliament. I have served as an OSCE 
election observer in two countries and was credited by OSCE in one 
country with having ``saved'' a hastily organized observer mission by 
recruiting several dozen observers on short notice.
    As I moved into more senior roles at subsequent postings, I 
regularly met with dissidents and civil society activists, signaling 
U.S. interest in both their concerns and their personal welfare. In one 
country, I hosted meetings for them with visiting senior officials from 
the Department. I also worked with pro-democracy civil society groups 
and a U.S.-based democracy NGO to help secure their legal status within 
the country and freedom to operate without harassment. More broadly, my 
meetings with activists enriched my human rights and democracy advocacy 
with host government officials.
    In these and other instances, both overseas and in Washington, I 
have never forgotten that the promotion of human rights and democracy 
around the world is an unending effort requiring constant attention 
from every level and branch of our government. It is also one of the 
singularly most rewarding missions a public servant could have the 
honor to take part in.

    Question. What are the most pressing human rights issues in 
Slovakia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Slovakia? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Slovakia include 
corruption; a weak judiciary; and discrimination against ethnic, 
religious, and sexual minorities, particularly Roma, refugees, Muslims, 
and the LGBTI community. If confirmed, I will continue our long-
standing support to the government of Slovakia on judicial reform, 
where notable progress has been made in recent years but where 
significant work remains to be done. We also will continue our vigorous 
dialogue on human rights and advocate for the rights of all minorities.
    Promoting Rule of Law continues to be a major focus of our efforts 
in Slovakia. Domestic polls show that 90 percent of Slovaks perceive 
corruption--particularly in public procurement and the use of EU 
funds--as widespread. The media regularly report on alleged corruption, 
but almost no high-level officials have been prosecuted since 
independence. Critics blame political influence over the police and 
prosecution services for blocking or hampering investigations. Rule of 
law reform is a long-term, multifaceted, and challenging process. 
Slovakia has demonstrated recent commitment to reform by adopting an 
anti-corruption action plan in consultation with the business 
community's Rule of Law initiative, a second National Action Plan under 
the Open Government Partnership, and a new judicial ethics code. These 
measures are steps in the right direction, but we continue to stress 
the need both for their full implementation and to hold corrupt actors 
accountable in a court of law. If confirmed, I will continue to work on 
strengthening democratic institutions and the rule of law, reinforcing 
the point that accountability and transparency are necessary to modern 
democracy and that corruption is inimical to democratic values and 
stable governments. We also will continue to support efforts to promote 
these values, including by providing grants to NGOs and individuals 
working in the field and bringing in experts to offer training and 
cooperation to Slovak judges, police, prosecutors, and other officials.
    Marginalization of the Romani minority remains among the most 
pressing human rights concerns in Slovakia, and promoting the human 
rights of Roma is a top priority for the U.S government. Reports 
estimate Slovakia's Roma minority to be seven to eight percent of the 
population (roughly 450,000 people), and many Roma live in 
impoverished, isolated settlements where discrimination is high and, in 
some areas, unemployment nears 100 percent. If confirmed, I will 
continue to urge Slovakia to improve the socio-economic and security 
situation of its Roma citizens and to ensure accountability for 
discrimination or violence directed at them and other minority groups. 
I will advocate for equal access to education for Romani children and 
work with partners to eradicate segregation in the education sector in 
any form. I also will promote Roma inclusion and ensure our Embassy 
stands firmly against derogatory remarks about the Roma or any other 
minority in Slovakia.
    Under my leadership, the Embassy will continue to play an active 
role in promoting Roma rights. The Embassy has been supporting the 
efforts of a Roma NGO to work with school inspectors to develop and 
implement a new methodology for recognizing illegal segregation in 
Slovak schools. Additionally, the U.S. government has encouraged the 
political engagement of the Roma community in Slovakia, and the Embassy 
has engaged young Roma leaders, including mayors and municipal 
officials, and has sent them on study tours to the United States. We 
will continue our support for the community by providing grants to 
Romani organizations and NGOs and raising public awareness about 
minority rights and the positive contributions made by Roma to Slovak 
society.
    To date, Slovakia has been largely unaffected by the European 
migration crisis, as the main refugee routes do not pass through its 
territory. Nevertheless, the Slovak government has strongly opposed 
mandatory refugee quotas under an EU-wide refugee distribution system, 
filing suit against the measure with the European Court of Justice in 
December 2015, and Slovak officials and politicians across the 
political spectrum engaged in anti-refugee and anti-Muslim rhetoric 
ahead of March 5 parliamentary elections. If confirmed, I will continue 
to stress to Slovak officials that such statements are inconsistent 
with the values on which our bilateral relations are based, impede 
practical approaches to the crisis, and play into the hands of far-
right extremists who have exploited the crisis to expand their support. 
I will urge the government to continue the positive steps it has taken 
on refugees, including additional financial contributions to alleviate 
the migrant crisis and sending Slovak police to support EU border 
control missions. Slovakia has temporarily accommodated 500 refugees 
currently applying for asylum in Austria and recently accepted 200 
Iraqi Christian refugees for permanent resettlement.
    Slovakia's religious minorities, particularly the Muslim community, 
continue to face discrimination. Restrictive legal registration 
procedures for religious dominations--which require at least 20,000 
adherents for registration--prevent smaller religious groups, including 
the Muslim community, from attaining the legal status to perform 
economic and certain public religious functions. For example, 
Slovakia's Muslim community, which numbers between two and five 
thousand individuals, has been unable to legally establish a Mosque in 
Slovakia, instead relying on smaller prayer rooms. Not being able to 
register has blocked the Muslim community from legally employing imams. 
If confirmed, I will continue the Embassy's practice of regularly 
meeting with government officials and registered and unregistered 
religious organizations to discuss religious freedom issues, including 
the treatment of minority religious groups and ways to combat anti-
Muslim sentiment. I will also share our successful efforts at 
integrating religious groups in the United States as a means of 
promoting the full inclusion of minority religions.
    LGBTI rights are human rights, which all nations have a 
responsibility to respect. The United States is known in Slovakia as a 
staunch advocate of LGBTI rights and consistently has advocated for the 
human rights of LGBTI persons. If confirmed, I will ensure that this 
support continues, via grants to NGOs focused on promoting greater 
public awareness of LGBTI rights and our Embassy's participation in 
annual Pride activities.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Slovakia in 
advancing human rights, civil society and democracy in general?

    Answer. Obstacles to promoting human rights in Slovakia include 
weak institutions susceptible to political influence; social prejudice; 
the growth of far-right movements; and a lack of resources for civil 
society, NGOs, and activists.
    Slovakia's judiciary remains one of its most troubled institutions, 
hampering anti-corruption efforts and discouraging foreign investment. 
Public trust in the judiciary stands at about 25 percent, the second-
lowest level in the EU. While Slovakia's current legal structure--most 
of which was updated after Slovakia became an independent state in 
1993--is adequate, democracies need an independent, impartial, and 
accountable judiciary and broader legal system whose first obligation 
is to uphold the law. Slovakia's self-governing judiciary needs to hold 
all judges accountable to certain standards, and we believe that the 
new enforceable judicial ethics code is a step in the right direction. 
We also need to see Slovakia hold all corrupt actors, including high-
level officials, accountable in a court of law to serve as a credible 
public example and deterrent. Ultimately, Slovakia will need political 
will for reform; strong, effective, well managed institutions free from 
political influence; fearless public servants, including judges, 
prosecutors, and police investigators; and enhanced public 
accountability, in which civil society and the media play an important 
role. Our Embassy will continue to be active in all of these areas if I 
am confirmed.
    Social prejudices are another challenge to reform. For example, 
there is little public support for efforts to promote Roma inclusion, 
with even many educated Slovaks claiming, inaccurately, that the 
government already invests too much money in such efforts. As a result, 
Slovak political leaders and officials have little incentive to 
prioritize minority rights. Despite the difficult environment, if 
confirmed, I will have the Embassy continue its focus on raising public 
awareness of the universality and importance of minority rights and the 
success of integration efforts in other countries. We will stress the 
significant long-term economic costs of a lack of educational and 
economic opportunities for Roma versus the economic benefits of 
policies that promote greater inclusion.
    The growth of extremist movements is a problem not limited to 
Slovakia, but a phenomenon we are seeing throughout Europe. Like many 
in Slovakia, I am concerned by the increasing popularity of far-right 
extremists in the country. If confirmed, I will ensure we continue to 
provide the Slovak government with training on how to monitor and 
combat the spread of extremism and that our Embassy continues to do all 
it can to counter extremist rhetoric through public messaging and 
events.

    Question. Are you committed to meeting with human rights, civil 
society and other nongovernmental organizations in the U.S. and with 
local human rights NGOs in Slovakia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Our Embassy has well-established relations with human 
rights activists, civil society representatives, and NGOs in both the 
United States and Slovakia, and I will work to expand and deepen these 
key relationships if confirmed.
    Our Embassy fully complies with the Leahy laws and, if confirmed, I 
will continue to uphold our legislative commitment to ensure that no 
U.S assistance is provided to any unit or individual that has committed 
a gross violation of human rights. I will continue to support this and 
similar efforts to ensure that provisions of U.S. security assistance 
and security cooperation reinforce human rights and accountability. 
Additionally, the Embassy has leveraged security and defense 
cooperation to promote human rights, a practice that I will continue if 
confirmed. For example, in cooperation with the FBI and DOJ experts, 
the Embassy organized tailor-made training for Slovak investigators and 
prosecutors dealing with corruption, and more such training is planned 
for this year. We can also send Slovak police to the International Law 
Enforcement Academy program in Budapest, where they receive training 
from U.S. federal law enforcement agencies on topics related to 
strengthening rule of law, including anti-corruption, ethics, and 
countering trafficking in persons.

    Question. Will you and your embassy team actively engage with 
Slovakia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Slovakia?

    Answer. As reported in the annual U.S. State Department Human 
Rights Report chapter on Slovakia, there are no political prisoners in 
Slovakia or persons otherwise unjustly targeted by the government of 
Slovakia. If confirmed, I will ensure full Embassy engagement with the 
Slovak government on this issue should that situation change.

    Question. Will you engage with Slovakia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Our Embassy has long has been engaged on human rights and 
good governance in Slovakia, and, if confirmed, I will ensure these 
important efforts will continue and be expanded.

    Question. While the Slovak Republic is a member of the EU and NATO 
and cooperates with the U.S. on a range of security issues, the Slovak 
Republic is not immune from Russian influence given its status as a 
transit hub for Russian gas going to Europe and the pervasive nature of 
Russian propaganda in the country. How would you characterize 
Slovakia's relations with Russia and the extent of Russian influence in 
the country? As U.S. Ambassador to the Slovak Republic, how would you 
work to counter Russian influence there?

    Answer. Slovakia is a valued NATO Ally and EU partner. Slovakia has 
stood with us in implementing sanctions against Russian aggression in 
Ukraine, and Slovakia supports our efforts to increase Europe's energy 
security. I will, if confirmed, work to help build its capacity to act 
forcefully in concert with us in Europe and beyond. This commitment 
includes ensuring Slovakia has the resources needed to be less 
dependent on Russia.
    During the Cold War, Russia exercised influence over Slovakia, 
which Russia argued was a natural outgrowth of linguistic and cultural 
ties and the Soviet Union's role in ending Nazi occupation of Slovak 
territory in World War II. A significant number of Slovaks studied in a 
school system strongly influenced by the Soviet Union or studied in the 
Soviet Union itself. Today, Russia is Slovakia's fourth most important 
trade partner, and Slovakia is almost completely dependent on Russia 
for its oil, natural gas, and nuclear fuel supply.
    If confirmed, I will strongly advocate for Slovakia to build a 
well-resourced military less dependent on Russia. I also will work with 
my counterparts across the region to reduce Slovakia's dependence on 
Russian energy sources. The United States is committed to helping 
advance European energy security through an integrated European energy 
market and diversification--of fuel types, supply source countries, and 
delivery routes. Strengthened Slovak energy security would present 
opportunities to foster increased energy cooperation across the region. 
We will continue to encourage Slovakia to work within EU structures to 
promote greater integration within the EU's own internal energy 
market.If confirmed, I will also focus on promoting and strengthening 
growing U.S.-Slovakia cultural and trade ties to counter Russian 
influence. Slovaks tend to hold very positive views of the United 
States and are proud members of NATO and the EU. Great programs like 
Summer Work and Travel enable thousands of Slovaks (2,700 in calendar 
year 2015) to visit the United States and reinforce Slovakia's strong 
commitment to Euro-Atlantic integration. The Embassy actively works to 
counter Russian propaganda and disinformation, which is one of its 
Mission goals. Last year, the Embassy sponsored a public panel 
discussion of conspiracy theories in the media, many of which are 
spread by Russian media outlets. The U.S. government narrative in 
Slovakia focuses on the strengths of America and the transatlantic 
alliance to inspire confidence in the future, which counters the focus 
of Russian propaganda on instilling fear and uncertainty.

    Question. The Slovak Republic routinely ranks on the bottom of EU 
countries for institutionalization of the rule of law and corruption. 
In parliamentary elections last weekend, far-right and extremist 
parties made unprecedented gains, bringing instability to the domestic 
political situation as Prime Minister Fico is now seeking to form a 
coalition government with a larger number of coalition partners. Should 
the U.S. be concerned about the state of democracy in Slovakia? How 
should the U.S. respond to help reinforce democratic institutions in 
the country?

    Answer. Slovakia's March 5 parliamentary elections saw eight 
parties qualify for seats in Parliament, including several previously 
unrepresented parties. The incumbent ruling party, Smer, which had 
enjoyed an outright majority in Parliament since 2012, again garnered 
the most votes. However, several parties rode a wave of anti-
establishment sentiment to deny Smer a renewed majority, necessitating 
a coalition government. The election itself was smooth, with an open 
and fair campaign, good voter turnout, and all parties quickly 
accepting the results. The process for forming the new government has 
been procedurally smooth, with President Kiska dutifully discharging 
his constitutional responsibilities to guide the process, in the first 
instance by granting Smer until March 18 to form a coalition majority. 
Democratic hallmarks such as independent media and respect for the 
constitutional process have been unchallenged in both the pre- and 
post-election environment.
    That said, the fact that the far-right extremist party LS-NS won 
eight percent of the popular vote and 14 seats in the new Parliament 
has caused concern in Slovakia, across Europe, and in the United 
States. The positions espoused by the party and its leadership stand in 
direct contrast to the values shared by the United States and the vast 
majority of Slovak people. I am heartened that President Kiska did not 
invite LS-NS to join his post-election meeting with all the other 
parties elected to Parliament and that the other parties have expressed 
unwillingness to consider a coalition with LS-NS. LS-NS's success 
reflects the wrong-headed rise in xenophobic rhetoric expressed or 
tolerated by mainstream parties as well as voter dissatisfaction with 
corruption and weak public services, which the Slovak government has 
ignored for too long.
    One on the principal reasons for Smer's underperformance in the 
final stages of the campaign centered around perceptions of endemic 
government corruption. While Slovakia has come a long way since 
independence in terms of strengthening the rule of law, more remains to 
be done. The country has made progress with the recent adoption of 
several anti-corruption measures, but implementation is key and high-
level prosecutions remain rare. If confirmed, I will work to strengthen 
democratic institutions and the rule of law, reinforcing that 
accountability and transparency are necessary to modern democracy and 
stressing that corruption undermines democratic values and effective, 
stable government. Our Embassy has been a close partner with government 
and civil society in encouraging needed reforms, including by providing 
training opportunities for prosecutors and law enforcement. I plan to 
continue to build upon these efforts if given the opportunity, as I 
believe the Slovak people share our goal to strengthen and deepen the 
rule of law and democracy within the country, and to cement the 
progress Slovakia made in its first two decades of independence.

                               __________
               ambassador-designate sterling's responses 
                    to questions from senator perdue

    Question. Please briefly describe your vision for taking on a new 
role as the U.S. Ambassador to Slovakia. What are your top priorities? 
What challenges do you foresee?

    Answer. No U.S. ambassador has a higher priority than the 
protection of our citizens from ensuring the safety of individual 
American travelers, to bolstering homeland security through bilateral 
law enforcement cooperation.
    Slovakia is a valued NATO Ally and EU partner. If confirmed, I will 
work to build Slovakia's capacity--including a resourced military less 
dependent on Russia--to act in the region and around the globe in 
concert with the United States and other allies. If confirmed, I will 
also focus on strengthening bilateral trade and investment, including 
by increasing opportunities for U.S. companies in the Slovak market and 
for Slovak companies that want to invest in the United States. I will 
also promote U.S. exports, fight for transparency and the rule of law 
as Slovakia improves its business environment, advocate for strong 
intellectual property rights enforcement, and press for greater energy 
diversity and efficiency that will further Slovakia's, and Europe's, 
energy security. Finally, if confirmed, I will emphasize with Slovak 
leaders and ordinary citizens that our countries' partnership is 
grounded in our shared democratic values, which include respect for the 
human rights and dignity of all people, notably including, in the case 
of Slovakia, its Romani minority and Muslims.
    An immediate challenge I will confront will be forging a strong 
working relationship with the new Slovak government. Slovakia's March 5 
parliamentary elections saw eight parties qualify for seats in 
Parliament, including several previously unrepresented parties. The 
incumbent ruling party, Smer, which had enjoyed an outright majority in 
Parliament since 2012, again garnered the most votes. However, several 
parties rode a wave of anti-establishment sentiment to deny Smer a 
renewed majority, necessitating a coalition government. Whatever the 
outcome of the ongoing coalition negotiations, several key ministry 
positions will change hands and the new coalition's platform may have 
different priorities than the current government.
    If confirmed, I will immediately seek to preserve and build on the 
current momentum in the bilateral relationship with the new government, 
in part by establishing strong ties to existing and new leaders to help 
facilitate more effective communication and build trust.

    Question. How do you feel your past experience, as well as your 
current position as Deputy Chief of Mission with the U.S. Embassy at 
The Hague, have prepared you to take on this new role?

    Answer. I have more than 25 years of experience in the Foreign 
Service. I am currently leading the U.S. mission in the Netherlands as 
Charge d'Affaires for the second time after leading our embassy in 
Azerbaijan for two long periods as Charge d'Affaires. In total, I have 
served as Charge for over two years of my career. In my capacity as 
Deputy Chief of Mission at both missions, I was responsible for 
internal Embassy operations and mentoring new officers. Beyond prior 
postings in Europe, the Middle East, and Latin America, I have had the 
privilege to work in Washington, both in the State Department and at 
the National Security Council, where I was the Director responsible for 
17 countries in Central and Eastern Europe, including Slovakia. These 
experiences have given me both the Washington and the field perspective 
for what is necessary in modern diplomacy, and what is expected of me 
by the White House as the President's personal representative.

    Question. How would you describe the role and contributions of 
Slovakia as a NATO ally? While leaders in Poland and Baltic countries 
have suggested the establishment of NATO bases in their countries as a 
deterrent to Russian aggression in the region, Slovak Prime Minister 
Fico has rejected the notion that Slovakia could host a NATO base. What 
is the U.S. view on his position? Do you believe this has to do with 
Slovakia's sympathies toward Russia?

    Answer. Slovakia is a strong NATO Ally. A member since 2004, 
Slovakia has shown a strong willingness to support NATO missions within 
Europe and throughout the world, to include operations in the Balkans, 
as well as U.N. Missions in Africa and the Levant. Slovakia has sent 
troops to--and taken casualties in--both Iraq and Afghanistan. Slovakia 
currently has 36 troops serving in Afghanistan as part of Resolute 
Support Mission. Slovakia is an active participant in NATO training 
exercises and has hosted several multinational exercises with its NATO 
Allies. Slovakia understands burden sharing and has announced its 
intent to increase defense spending from 1 percent to 1.6 percent of 
GDP by 2020, with 20 percent of that dedicated to force modernization.
    Slovakia has committed to host a NATO Force Integration Unit 
(NFIU). These small headquarters are valuable contributions to NATO's 
plan to adapt to emerging security concerns in and around Europe. NFIUs 
facilitate the rapid deployment of Allied forces to the eastern part of 
the Alliance, support collective defense planning, and assist in 
coordinating training and exercises.

    Question. How would you characterize Slovakia's relations with 
Russia? Why has Slovakia been skeptical of EU sanctions against Russia 
over its aggression in Ukraine? How does Slovakia's perception compare 
to that of its neighbors? What is the extent of Russian influence on 
the Slovak government? How do the Slovakian people view Russia?

    Answer. Slovakia is a valued NATO Ally and EU partner. Slovakia 
supported the EU consensus to impose and subsequently roll over the 
sanctions, most recently in January 2016. Slovakia supports U.S. and EU 
efforts to strengthen Europe's energy security and has played a 
critical role in strengthening Ukraine's energy security by enabling 
the reverse flow of natural gas to Ukraine starting in 2014. This step 
allowed Ukraine to get through the last two winters without any major 
gas shortages and gain bargaining leverage with Russia over future gas 
supply and transit contracts.
    Russian influence in Slovakia is partly a remnant of the former 
Czechoslovakia's place in the Warsaw Pact during the Cold War. Russia 
then exercised influence over Slovakia, which Russia argued was a 
natural outgrowth of linguistic and cultural ties and the Soviet 
Union's role in ending Nazi occupation of Slovak territory in World War 
II. A significant number of Slovaks studied in a school system strongly 
influenced by the Soviet Union or studied in the Soviet Union itself. 
Today, Russia is Slovakia's fourth-most-important trade partner, and 
Slovakia is almost completely dependent on Russia for its oil, natural 
gas, and nuclear fuel supply.

    Question. In your opinion, can the U.S. do anything to mitigate 
Russian influence with the Slovakian government? With the Slovak 
people? If so, what specifically?

    Answer. If confirmed, I will work to help build Slovakia's capacity 
to act in concert with us in Europe and beyond. This commitment 
includes ensuring Slovakia has the resources needed to be less 
dependent on Russia. Specifically, I will strongly advocate for 
Slovakia to build a well-resourced military less dependent on Russia. I 
will also work with my counterparts across the region to reduce 
Slovakia's dependence on Russian energy sources.
    Additionally, if confirmed, I will also focus on promoting and 
strengthening growing U.S.-Slovakia cultural and trade ties to counter 
Russian influence. Slovaks tend to hold very positive views of the 
United States and are proud members of NATO and the EU. Great programs 
like Summer Work and Travel enable thousands of Slovaks (2,700 in 
calendar year 2015) to visit the United States and reinforce Slovakia's 
strong commitment to Euro-Atlantic integration. The Embassy actively 
works to counter Russian propaganda and disinformation, which is one of 
its Mission goals. Last year, the Embassy sponsored a public panel 
discussion of conspiracy theories in the media, many of which are 
spread by Russian media outlets. The U.S. government narrative in 
Slovakia focuses on the strengths of America and the transatlantic 
alliance to inspire confidence in the future, which counters the focus 
of Russian propaganda on instilling fear and uncertainty.

    Question. There are differing assessments of corruption inside 
Slovakia. In your opinion, to what extent is corruption a problem for 
Slovakia? How does corruption affect life in Slovakia? How can the U.S. 
government help to reduce the influence of corruption in the country?

    Answer. Corruption continues to be a significant problem in 
Slovakia. Public confidence in the judicial system is among the lowest 
in the EU, an example of how corruption affects society. Statistics 
show that most corruption cases prosecuted in Slovakia involve small 
sums and that high-level prosecutions are rare. Strengthening the rule 
of law is a long-term, ongoing, and complex challenge. While Slovakia 
has come a long way since independence, more remains to be done. Our 
Embassy has been a close partner in developing Slovak institutions and 
will continue to work hard to strengthen rule of law in Slovakia.
    If confirmed, I will work to strengthen democratic institutions and 
the rule of law, reinforcing that accountability and transparency are 
necessary to modern democracy and stressing that corruption undermines 
democratic values and effective, stable government. Our Embassy has 
been a close partner with government and civil society in encouraging 
needed reforms, including by providing training opportunities for 
prosecutors and law enforcement. I plan to continue building upon these 
efforts if given the opportunity. The recent Slovak elections clearly 
showed that the Slovak people place a top priority on fighting 
corruption in their country, which requires strengthening and deepening 
the rule of law and democracy in the country.

    Question. What can the United States do to help strengthen energy 
security and increase supply diversification for Slovakia and its 
neighbors?

    Answer. The United States and Slovakia are partnering closely on 
the issue of energy security, as Slovakia is almost completely 
dependent on Russia for its oil, natural gas, and nuclear fuel supply. 
Diversification of energy routes and sources is particularly important 
for countries like Slovakia that are heavily reliant on single sources 
of supply. The United States is committed to advancing European energy 
security through an integrated European energy market and 
diversification--of fuel types, supply source countries, and delivery 
routes. One of our highest priorities is maintaining Ukraine, and thus 
Slovakia, as a gas transit country.
    Enhanced Slovak energy security is also an opportunity to foster 
increased energy cooperation across the region. We continue to 
encourage Slovakia to work within EU structures to promote greater 
integration within the EU's own internal energy market. If confirmed, I 
will work with my counterparts across the region to promote this type 
of regional collaboration.
    Our energy security policy is a pro-Europe policy, not an anti-
Russia policy. Russian supplies can and should remain an important 
source of energy for Europe. But suppliers must follow Europe's rules. 
We believe comprehensive gas diversification--fuel type, supply source 
country, and transit route--and adherence to EU rules to ensure a 
transparent, liquid and competitive market best guarantee energy 
security for the region's people.

    Question. How would you promote the expansion of U.S.-Slovakia 
trade and investment ties? Do you believe the Transatlantic Trade and 
Investment Partnership would benefit Slovakia? Why or why not?

    Answer. If confirmed, I will work closely with the Bureau of 
Economic and Business Affairs as well as the U.S. Department of 
Commerce to ensure the full resources of the U.S. government are used 
to advocate for U.S. businesses in Slovakia. I will also pursue 
aggressive U.S. investment and export promotion efforts to maximize the 
many commercial opportunities in the Slovak market. I will work with my 
staff to promote joint ventures and other opportunities for Slovak 
firms seeking to invest in the United States.
    As someone who has served for the past six years on the boards of 
directors for the American Chambers of Commerce (AmCham) in the 
Netherlands and Azerbaijan, I will continue, if confirmed, as a partner 
with the AmCham in Slovakia to improve Slovakia's business climate, 
with a focus on continuing to increase transparency, predictability, 
stability, and the transfer of best practices from the United States. 
One way Slovakia can enhance its appeal to U.S. businesses is by better 
institutionalizing rule of law, particularly anti-corruption efforts. A 
level playing field would benefit not only U.S. firms, but Slovakia as 
a whole.
    As a market-oriented, export-led economy, Slovakia supports T-TIP. 
If confirmed, I will work with the Slovak government to promote the 
expected benefits that T-TIP and increased trade with the United States 
will bring to Slovakia and the region, particularly during Slovakia's 
inaugural presidency of the European Council during the second half of 
this year.

                               __________


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 8, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Geeta Pasi, of New York, nominated to be Ambassador to the 
        Republic of Chad
Hon. Mary Beth Leonard, of Massachusetts, nominated to be 
        Representative of the United States of America to the 
        African Union
Anne S. Casper, of Nevada, nominated to be Ambassador to the 
        Republic of Burundi
                              ----------                              

    The committee met, pursuant to notice, at 3:40 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake [presiding] and Markey.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today the committee will consider the nominations of three 
experienced career Foreign Service officers to be U.S. 
Ambassadors to Chad, the African Union, and Burundi. I was 
happy to meet each of the nominees in my office earlier. I 
appreciate their appreciation of the challenges ahead and their 
willingness to undertake this.
    Chad remains an important partner on a number of fronts, 
especially in the efforts against Boko Haram. Popular protests 
in the run-up to recent elections and economic stress due in 
part to low global oil prices highlight internal problems, and 
the government will need to grapple with these in the months 
and years to come.
    The African Union plays an important role in promoting 
peace, good governance, and economic development on the 
continent. As Senator Markey mentioned, we were able to visit 
that body last year with President Obama. Managing our 
relationship with the AU will continue to be a vital part of 
our regional engagement.
    Finally, since last year, Burundi's escalating violence and 
instability has made for a complex situation that requires 
sustained attention, careful handling by our next Ambassador 
who will face many challenges in pursuing U.S. objectives.
    I thank each of you for your time and sharing your 
experience and expertise with us here. I want to pass along our 
thanks to your family. I am sure you will want to introduce 
family members who are here. Particularly with these 
assignments, I know often it is a great sacrifice to yourself 
and your families for you to be able to serve, and it is very 
much appreciated.
    With that, Senator Markey, do you have comments?

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman. Thank you very 
much.
    The three nominees we have here today are highly 
accomplished Foreign Service officers who have dedicated their 
lives to the service of our country, sometimes in difficult 
places and away from loved ones. They understand that America 
needs to be out there in tough places working for our country 
and our partners for the mutual benefit of our governments and 
our people, and for that we are very grateful.
    Countries in sub-Saharan Africa have tremendous promise and 
potential. Unfortunately, some of these countries are doing 
better at realizing this potential than others.
    If confirmed, two of three nominees, the nominee for 
Ambassador to Burundi, Ms. Anne Casper, and the nominee for 
Ambassador to Chad, Ambassador Geeta Pasi, will face the 
difficult task of urging the leaders of those countries away 
from violence, instability, and corruption and towards 
democracy, good governance, and accountability.
    The third is Ambassador Mary Beth Leonard, who I am proud 
to note is a fellow native of Massachusetts and a graduate of 
Doughtery High School in Worcester, Massachusetts. Her task as 
our representative to the African Union will be to lead our 
efforts to help strengthen that organization's ability to make 
Africa a more peaceful, stable, and prosperous place. 
Accomplishing those goals means working with African 
governments and regional bodies to make sure that there is 
democratic space that allows for free expression and non-
violent dissent.
    You are three wonderful candidates. We welcome you here 
today.
    I thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Markey.
    We will now turn to the nominees. Ms. Geeta Pasi recently 
served as Director of the Office of Career Development and 
assignments in the State's Bureau of Human Resources. Previous 
positions included ambassadorship to Djibouti, Director of the 
Office of East African Affairs, and postings in Cameroon and 
Ghana.
    The second nominee, Mary Beth Leonard, career Foreign 
Service member of the Department of State faculty advisors with 
the U.S. Naval War College. Previously she served as U.S. 
Ambassador to Mali, Director of the Office of West African 
Affairs. She has also held positions in South Africa, Cameroon, 
Namibia, and Togo. [Foreign language spoken.]
    Senator Flake. I just said she is the only one here that 
speaks Afrikaans, so we will have this meeting in Afrikaans. 
[Laughter.]
    Senator Flake. Last but not least, Anne Casper, who 
currently serves as Senior Advisor in the Center for Strategic 
Counterterrorism Partnership for the State Department's Global 
Engagement Center. Previous postings included Saudi Arabia, 
Rwanda, Albania, and Syria.
    A highly accomplished group here. We, again, thank you for 
your willingness to serve.
    Ms. Pasi?

  STATEMENT OF HON. GEETA PASI, OF NEW YORK, NOMINATED TO BE 
               AMBASSADOR TO THE REPUBLIC OF CHAD

    Ambassador Pasi. Good afternoon, Mr. Chairman and members 
of the committee. It is an honor for me to appear before you 
today as President Obama's nominee to be Ambassador to the 
Republic of Chad. I am grateful to the President and to 
Secretary Kerry for the confidence they have placed in me.
    First, Mr. Chairman, please permit me to acknowledge family 
members here today. My sisters, Usha and Rita, and my niece 
Minaka have joined me this afternoon.
    Mr. Chairman, please allow me to tell you a bit about 
myself. My career has included challenging assignments around 
the world and at home. I have served in Africa three times, as 
you noted, including as Ambassador to Djibouti. In Washington, 
I served in numerous positions, including as the Afghanistan 
Desk Officer where I was working on September 11, 2001, and I 
am proud to be in the Bureau of Human Resources.
    Mr. Chairman, if confirmed, I look forward to leading 
Embassy N'Djamena in advancing U.S. interests with our Foreign 
and Civil Service personnel, military staff, and local 
employees. Our main interests in Chad are peace and security, 
good governance, human rights, and economic development. Chad 
shares borders with Libya, Sudan, the Central African Republic, 
Nigeria, Cameroon, and Niger. Chad is an important partner in 
the fight against violent extremist groups, including Boko 
Haram. The United States aims to strengthen the productive 
partnership we enjoy with Chad. As we advance our mutual 
interests on the security front, we also seek to promote 
democracy and good governance. If confirmed, I will work with 
you to represent the interests and values of the American 
people to the government and people of Chad at a moment when 
Chad's partnership with the United States and our allies is on 
the ascendancy.
    Mr. Chairman, regional threats and instability have 
contributed to domestic challenges in Chad, including by 
threatening key trade routes and markets. This has weakened 
Chad's economy, which has already been impacted by a decline of 
oil prices globally. International investment in Chad is 
severely constrained by its geographic isolation, limited 
infrastructure, human capital challenges, high import duties, 
and corruption. Chad's human rights record is problematic 
although there has been some improvement. If confirmed, I will 
continue to press the Government of Chad on democracy and human 
rights.
    Chad is host to over 380,000 refugees from Sudan, Nigeria, 
and the Central African Republic and approximately 100,000 
internally displaced persons largely in the Lake Chad region. 
Ongoing insecurity related to Boko Haram has resulted in 
decreased food production, reduced market activity, and 
complicated the delivery of humanitarian assistance. As a 
result, over 100,000 people are food insecure. Internally 
displaced persons and refugees lack access to food, shelter, 
and sanitation, and their huge numbers have taxed Chad's 
limited infrastructure.
    If confirmed, Mr. Chairman, I will remain focused on using 
all elements of the USG to support Chad in its efforts to 
counter the threat of Boko Haram, including closely monitoring 
Boko Haram's linkages to ISIL under its new name, ISIL West 
Africa Province. I will encourage the Government of Chad to 
focus not only on the immediate security threat, but also the 
root causes of violence in the region.
    Finally, Mr. Chairman, if confirmed, my highest priority 
will be the protection of mission personnel, as well as all 
Americans living and traveling in Chad and American business 
interests. Within the next year, the mission will move to a 
newly constructed embassy compound, meaning that all mission 
personnel will work in the safest and most secure facilities 
available. Maintaining this technologically advanced building 
in Chad will be a challenge, and I am committed to good 
stewardship of the significant USG investment.
    Mr. Chairman and members of the committee, I would like to 
thank you for the privilege of appearing before you today. If 
confirmed, I would welcome the challenge of protecting and 
advancing the interests of the United States in Chad. It is a 
duty and responsibility I would be honored to accept. Thank you 
and I would welcome any questions you might have.
    [The prepared statement of Ambassador Pasi follows:]


                    Prepared Statement of Geeta Pasi

    Mr. Chairman and members of the committee, it is an honor for me to 
appear before you today as President Obama's nominee to be Ambassador 
to the Republic of Chad. I am grateful to the President and Secretary 
Kerry for the confidence they have placed in me. First, Mr. Chairman, 
please permit me to acknowledge family members here today. My sisters, 
Usha and Rita, my brother Peter, my sister in law Hallie Lewis, my 
brother in law Subir Sachdev, and my nieces who have joined me today.
    Mr. Chairman, please allow me to tell you about myself. My career 
has included challenging assignments around the world and at home. I 
have served in Africa three times, including as Ambassador to Djibouti. 
In Washington, I served in numerous positions, including as the 
Afghanistan Desk Officer where I was working on September 11, 2001. I 
currently serve in the Bureau of Human Resources.
    Mr. Chairman, if confirmed, I look forward to leading Embassy 
N'Djamena in advancing U.S. interests with our team of Foreign and 
Civil Service personnel, military staff, and local employees. Our main 
interests in Chad are peace and security, good governance, human 
rights, and economic development. Chad shares borders with Libya, 
Sudan, the Central African Republic, Nigeria, Cameroon, and Niger. Chad 
is an important partner in the fight against violent extremist groups, 
including Boko Haram. The United States aims to strengthen the 
productive partnership we enjoy with Chad. As we advance our mutual 
interests on the security front, we also seek to promote democracy and 
good governance. If confirmed, I will work with you to represent the 
interests and values of the American people to the government and 
people of Chad, at a moment when Chad's partnership with the United 
States and its allies is in the ascendancy.
    Mr. Chairman and members of the committee, Chad is committed to 
regional stability. Chad plays a critical role in the region and is an 
important partner in combatting violent extremism.
    Mr. Chairman, regional threats and instability have contributed to 
domestic challenges in Chad, including by threatening key trade routes 
and markets. This has weakened Chad's economy, which has already been 
impacted by a decline of oil prices globally. International investment 
in Chad is severely constrained by its geographic isolation, limited 
infrastructure, human capital challenges, high import duties, and 
corruption. Chad's human rights record is problematic although there 
has been improvement. If confirmed, I will continue to press the 
Government of Chad on democracy and human rights.
    Given its location in a troubled region, Chad is host to over 
380,000 refugees--from Sudan, Nigeria and the Central African 
Republic--and approximately 100,000 internally displaced persons (IDP), 
largely in the Lake Chad region. Ongoing insecurity related to Boko 
Haram attacks has led to decreased food production, reduced market 
activity, and complicated the delivery of humanitarian assistance. Over 
100,000 people are food insecure in Boko Haram-affected areas of the 
country. Boko Haram has repeatedly attacked villages, burned homes, 
killed village leaders, and targeted both civilians and security 
forces. IDPs and refugees lack access to food, shelter, sanitation, and 
hygiene services, and their large numbers have taxed Chad's already 
limited resources.
    If confirmed, Mr. Chairman, I will remain focused on using all 
elements of the USG to support Chad in its efforts to counter the 
threat of Boko Haram, including closely monitoring Boko Haram's 
linkages to ISIL under its new name--ISIL West Africa Province. I will 
encourage the Government of Chad to focus not only on the immediate 
security threat, but also the root causes of violence in the region.
    Finally, Mr. Chairman, if confirmed, my highest priority will be 
the protection of all Mission personnel as well as all Americans living 
and traveling in Chad and American business interests. Within the next 
year, the Mission will move to a newly constructed embassy compound, 
meaning that all Mission personnel will work in the safest and most 
secure facilities available. Maintaining this technologically-advanced 
building in Chad will be a challenge, and I am committed to good 
stewardship of this significant USG investment.
    Mr. Chairman and members of the committee, I would like to thank 
you for the privilege of appearing before you today. If confirmed, I 
would welcome the challenge of protecting and advancing the interests 
of the United States in Chad: it is a duty and responsibility I would 
be honored to accept. Thank you and I would welcome any questions you 
might have.


    Senator Flake. Thank you for being here. Your family 
members know more about African sanctions than they wanted to 
know probably. [Laughter.]
    Senator Flake. Thank you for being here as well.
    Ms. Leonard?

    STATEMENT OF HON. MARY BETH LEONARD, OF MASSACHUSETTS, 
    NOMINATED TO BE U.S. REPRESENTATIVE TO THE AFRICAN UNION

    Ambassador Leonard. Mr. Chairman, Ranking Member Markey, it 
is a great honor to appear before you today as the nominee to 
serve as the U.S. Ambassador to the African Union and as the 
U.S. Representative to the United Nations Economic Commission 
for Africa.
    I joined the Foreign Service 28 years ago nearly to this 
day in the same class as today's co-panelist, Geeta Pasi, I 
might add, with a newly minted master's degree in African 
studies. I remember vividly my excitement that the State 
Department would agree to send me to live and work in Africa. 
Sitting here today, after six tours in Africa and two domestic 
Africa-related tours, my excitement is equally palpable, as I 
contemplate the prospect that, if confirmed, I will marshal 
those professional experiences in directing U.S. relations with 
the African Union. These experiences culminated with the honor 
of serving as Ambassador in Mali, where the U.S. mission was at 
the forefront of a closely coordinated multilateral effort to 
support that country in emerging from multidimensional security 
and governance crisis.
    I am deeply grateful for the trust and confidence that the 
President and Secretary Kerry have shown in me with this 
nomination, and if confirmed, I look forward to working closely 
with the members of the committee and your staffs to promote 
and protect U.S. interests across Africa by strengthening and 
expanding our ties with the continent's premier multilateral 
institution.
    I am pleased to welcome family members who are with me 
today, including my sister, Ann Marie Stoica, and niece, Mary 
Ann Manning, as well as my cousin, Brian Johnson.
    Nothing I could say today would underscore the importance 
of our relationship with the African Union more than President 
Obama did by his historic visit to Addis Ababa last July. As 
the first U.S. President to visit the AU, President Obama 
delivered a strong message on our commitment to Africa. This is 
a relationship rooted in shared goals, which are reflected in 
President Obama's 2012 policy directive for sub-Saharan Africa 
and the AU's Constitutive Act, i.e., their founding document: 
peace and security; democracy and governance; opportunity and 
development; and economic growth, trade, and investment. If 
confirmed, I look forward to strengthening our close 
collaboration in all four areas.
    U.S. resource contributions to AU peace and security 
efforts have included both capacity building and operational 
support. Capacity building has assisted with AU peacekeeping 
and conflict early warning work, and operational support has 
included equipment, training, and logistics planning. The AU 
and its member states have made substantial progress in being 
able to step up to their security challenges, but additional 
work is needed, including in counterterrorism and maritime 
security.
    The realization that international largesse is not without 
its limits has led to discussions about new partnerships to 
provide both more reliable support and greater financial 
responsibility from the AU and its member states in U.N.-
authorized peace operations in Africa. If confirmed, I would 
look forward to next steps as we work together with the AU, the 
U.N., and others in the international community to bring new 
proposals to fruition.
    The United States and the AU share a commitment to 
democratic principles, including free and fair elections, 
peaceful transitions of power, and sound governance. More 
broadly, we look to the AU as a respected voice on the 
continent that builds consensus on African issues among member 
states and stakeholders. I will continue this dialogue if I am 
confirmed, including frank discussions about how to address 
situations where democracy and governance are falling short. As 
President Obama made clear during his AU visit last year, the 
United States does not believe that governments should change 
their constitutions to benefit the incumbent in power. Our 
diplomatic efforts to resolve or prevent such crises are 
multifaceted and, indeed, multilateral. The African Union has 
been and will continue to be important partners in this regard.
    On the development front, the AU's Agenda 2063 in the words 
of AU Commission Chairperson Dr. Dlamini Zuma encapsulates the 
aspirations of Africa's people for themselves and for their 
continent.'' From PEPFAR to the President's Power Africa 
initiative, the United States has been at the forefront of 
helping Africa and Africans realize those aspirations. We need 
to help Africans build sustainable livelihoods and better 
opportunities, particularly for this continent's strikingly 
young population. Congress' 2015 renewal of the Africa Growth 
and Opportunity Act for another 10 years will enable more 
African entrepreneurs and exporters to build their businesses 
via stronger and more open trade relationships with the United 
States, another area I look forward to supporting, if 
confirmed.
    Mr. Chairman, baie dankie, and I thank both members for the 
opportunity to appear before you and look forward to your 
questions.
    [The prepared statement of Ambassador Leonard follows:]


                Prepared Statement of Mary Beth Leonard,

    Mr. Chairman, Ranking Member Markey, and members of the committee, 
it is a great honor to appear before you today as the nominee to serve 
as the U.S. Ambassador to the African Union and as the U.S. 
Representative to the United Nations Economic Commission for Africa 
(UNECA). I joined the Foreign Service 28 years ago nearly to this day--
in the same class as today's co-panelist Geeta Pasi, I might add--with 
a newly minted Master's Degree in African studies. I remember vividly 
my excitement that the State Department would agree to send me to live 
and work in Africa. Sitting here today, after six tours in Africa and 
two domestic Africa-related tours, my excitement is equally palpable as 
I contemplate the prospect that, if confirmed, I will marshall those 
professional experiences in directing U.S. relations with the African 
Union. These experiences culminated with the honor of serving as 
Ambassador in Mali, where the U.S. mission was at the forefront of a 
closely coordinated multilateral effort to support that country in 
emerging from a multidimensional security and governance crisis. I am 
deeply grateful for the trust and confidence that the President and 
Secretary Kerry have shown in me with this nomination. If confirmed, I 
look forward to working closely with the members of this committee and 
your staffs to promote and protect U.S. interests across Africa by 
strengthening and expanding our ties with the continent's premier 
multilateral institution.
    I am pleased to welcome family members who are with me today 
including my sister Ann Marie Stoica and niece Mary Ann Manning.
    Nothing I could say today would underscore the importance of our 
relationship with the African Union more than President Obama did by 
his historic visit to Addis Ababa last July. As the first U.S. 
President to visit the AU, President Obama delivered a strong message 
on our commitment to Africa--to democracy, to opportunity, to 
prosperity, and to the promotion of and respect for human rights for 
all people. This is a relationship rooted in shared goals, which are 
reflected in President Obama's 2012 Policy Directive for sub-Saharan 
Africa and the AU's Constitutive Act (the AU's founding document): 
Peace and Security; Democracy and Governance; Opportunity and 
Development; and Economic Growth, Trade, and Investment. If confirmed, 
I look forward to strengthening our close collaboration in all four 
areas.
    U.S. resource contributions to AU peace and security efforts have 
included both capacity building and operational support. Capacity 
building has assisted with AU peacekeeping and conflict early warning 
work and operational support has included equipment, training, and 
logistics planning. Most recently, U.S. support has enabled AU efforts 
to counter the Lord's Resistance Army, support the AU Mission in 
Somalia, and bolster the Lake Chad Basin Commission's efforts to 
counter Boko Haram. The AU and its member states have made substantial 
progress in being able to step up to their security challenges but 
additional work is needed, including in counterterrorism and maritime 
security. The realization that international largesse is not without 
its limits has led to discussions about new partnerships to provide 
both more reliable support and greater financial responsibility from 
the AU and its member states in UN-authorized peace operations in 
Africa. We welcomed the AU's appointment this January of Dr. Donald 
Kaberuka as the AU High Representative for the Peace Fund, highlighting 
the AU's commitment to this issue. If confirmed, I would look forward 
to next steps as we work together with the AU, the UN, and others in 
the international community to bring new proposals to fruition.
    The United States and the AU share a commitment to democratic 
principles, including free and fair elections, peaceful transitions of 
power, and sound governance. More broadly, we look to the AU as a 
respected voice on the continent that builds consensus on African 
issues among member states and stakeholders. I will continue this 
dialogue if I am confirmed, including frank discussions about how to 
address situations where democracy and governance are falling short. As 
President Obama made clear during his AU visit last year, the United 
States does not believe that governments should change their 
constitutions to benefit the incumbent in power. Our diplomatic efforts 
to resolve or prevent such crises are multi-faceted, and indeed 
multilateral; the African Union, along with sub-regional African 
organizations such as the East African Community, has been and will 
continue to be important partners in this regard.
    On the development front, the AU's ``Agenda 2063'' in the words of 
AU Commission Chairperson Dr. Nkosazana Dlamini Zuma, ``encapsulates 
the aspirations of Africa's people for themselves and for their 
continent.'' From PEPFAR to the President's Power Africa initiative, 
the United States has been at the forefront of helping Africa and 
Africans realize those aspirations. We need to help Africans build 
sustainable livelihoods and better opportunities, particularly for this 
continent's strikingly young population. Congress' 2015 renewal of the 
African Growth and Opportunity Act for another ten years will enable 
more African entrepreneurs and exporters to build their businesses via 
stronger and more open trade relationships with the United States, 
another area I look forward to supporting, if confirmed.
    I cannot close without a word about the global response to the 
Ebola crisis, where our U.S. military and medical personnel worked 
alongside counterparts from Africa, Europe, China, and elsewhere to 
treat the ill and build institutional resilience in the Ebola-affected 
countries. We could not have succeeded without the critical 
contributions of the African Union, which deployed medical personnel 
and helped to coordinate a very effective response. If confirmed, it 
would be my honor to continue to pursue our efforts to support the 
nascent Africa Centers for Disease Control and Prevention, partially 
modeled on our own CDC, as framed in the April 2015 memorandum of 
cooperation signed by Secretary Kerry and Chairperson Dlamini Zuma.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee, and look forward to your 
questions.


    Senator Flake. Thank you.
    Ms. Casper?

    STATEMENT OF ANNE S. CASPER, OF NEVADA, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF BURUNDI

    Ms. Casper. Chairman Flake, Ranking Member Markey, it is an 
honor to appear before you today as President Obama's nominee 
to be the U.S. Ambassador to the Republic of Burundi. I am 
extremely grateful to the President and Secretary Kerry for 
their confidence in me. If confirmed, I will work closely with 
this committee and other interested Members of Congress to 
advance U.S. interests in Burundi and help Burundians achieve 
the bright future they deserve.
    Accompanying me here today is my husband, Karl Deringer, 
who has served in U.S. missions overseas as a nurse and in 2012 
won the Secretary of State's award for volunteerism in Africa. 
I would also like to mention my mother Ilene Casper who taught 
me the value of education, my brother Larry, an assistant U.S. 
attorney, and my late father, Charles Casper, a self-made man 
and proud veteran who modeled service to our country and a 
father who pushed his daughter to follow her dreams.
    Mr. Chairman, Burundi has been a friend of the United 
States since its founding as a republic in 1962. Roughly the 
size of New Hampshire and located in the heart of Africa, 
Burundi is home to 10 million citizens.
    After decades of ethnic conflict, political violence, one-
party rule, and a civil war that killed over 300,000 people, 
the signing of the Arusha Agreement in 2000 established a 
framework for peaceful political competition and ushered in a 
decade of hope. However, events over the past year have led 
Burundi away from the spirit and promise of Arusha.
    Since April 2015, when the Burundi Government signaled its 
intent to disregard term limits in violation of the Arusha 
Agreement, over 400 people have been killed and 260,000 have 
fled to neighboring countries. Targeted violence, 
assassinations, sexual and gender-based violence, and 
retaliatory attacks have continued with impunity, further 
threatening Burundi's fragile peace. Mr. Chairman, this killing 
must stop. Ending this crisis and restoring stability to 
Burundi requires leadership and it requires courage. Peace that 
binds all parties is essential for a return to a positive 
trajectory in Burundi.
    The United States remains seized with resolving this crisis 
through direct engagement. We are pressing all sides to stop 
the violence and commit to participating in the East African 
Community-led dialogue process, which most recently convened 
last month. Additionally, the United States is supporting the 
deployment and important work of U.N. and African Union human 
rights monitors and continues to engage the U.N., AU, and 
regional partners on contingency planning.
    Mr. Chairman, young people make up over half of all 
Burundian citizens, and they are seeking education and jobs in 
ever greater numbers. Given the dearth of opportunity, however, 
they are particularly vulnerable to recruitment into militias. 
The U.S. Government runs programs with local partners to 
develop opportunities for young people, strengthen conflict 
resolution, monitor for hate speech, and promote peaceful 
messaging. If I am confirmed, embassy staff and I will continue 
to reach out broadly to strengthen these efforts and expand 
opportunities.
    Mr. Chairman, Burundi's fragile economy continues to 
deteriorate, increasing Burundians' health and nutritional 
challenges. The U.S. Government provides $50 million annually 
in USAID-funded assistance programs, primarily to the health 
sector. We have also contributed $86 million in humanitarian 
assistance for refugees and others affected by the current 
crisis. If confirmed, I will work to ensure that this 
assistance remains effective.
    I also would note that Burundi has made important 
contributions to peacekeeping, particularly countering Al 
Shabaab in Somalia.
    Finally, our mission in Bujumbura has performed admirably 
under very difficult circumstances over the past year. I look 
forward, if confirmed, to working with every one of our embassy 
staff, American and locally engaged alike. Ensuring the 
continued safety of American citizens residing in Burundi and 
the security of our staff are my highest priorities.
    Mr. Chairman, if confirmed, I will bring the collective 
experiences of my 23 years in the Foreign Service to advance 
U.S. interests. I will also help Burundi's people restore their 
nation and their lives so that they export products, not 
people, and so that when the world thinks of Burundi and the 
center of Africa, we will not dwell on their fears but we will 
share with Burundians the promise of their hopes.
    [The prepared statement of Ms. Casper follows:]


                  Prepared Statement of Anne S. Casper

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Obama's nominee to be the U.S. Ambassador 
to the Republic of Burundi. I am extremely grateful to the President 
and Secretary Kerry for their confidence in me. If confirmed, I will 
work closely with this committee and other interested Members of 
Congress to advance U.S. interests in Burundi and help Burundians 
achieve the bright future they deserve.
    Accompanying me here today is my husband, Karl Deringer, who has 
served in U.S. missions overseas as a nurse and in 2012 won the 
Secretary of State's award for volunteerism in Africa. I would not be 
here today without his support. I would also like to mention my mother, 
Ilene Casper, who taught me the value of education, my brother Larry, 
an assistant U.S. attorney, and my late father, Charles Casper, a self-
made man and proud veteran who modeled service to our country and a 
father who pushed his daughter to follow her dreams.
    Mr. Chairman, Burundi has been a friend of the United States since 
its founding as a republic in 1962. Roughly the size of New Hampshire 
and located in the heart of Africa, Burundi is home to over 10 million 
citizens.
    After decades of ethnic conflict, political violence, one-party 
rule, and a civil war that killed over 300,000 people in Burundi, the 
signing of the Arusha Agreement in 2000 established a framework for 
peaceful political competition and ushered in a decade of hope. 
However, events over the past year have led Burundi away from the 
spirit and promise of Arusha.
    Since April 2015, when the Burundi government signaled its intent 
to disregard term limits in violation of the Arusha Agreement, over 400 
people have been killed and 260,000 have fled to neighboring countries. 
Targeted violence, assassination, sexual and gender-based violence and 
retaliatory attacks have continued with impunity, further threatening 
Burundi's fragile peace. Mr. Chairman, this killing must stop. Ending 
this crisis and restoring stability to Burundi requires leadership and 
it requires courage. Peace that binds all parties is essential for a 
return to a positive trajectory in Burundi.
    The United States remains seized with resolving this crisis though 
direct engagement. We are pressing all sides to stop the violence and 
commit to participating in the East African Community-led dialogue 
process, which most recently convened last month. Additionally, the 
United States is supporting the deployment and important work of U.N. 
and African Union (AU) human rights monitors, and continues to engage 
the UN, AU, and regional partners on contingency planning.
    Mr. Chairman, young people make up over half of all Burundian 
citizens and they are seeking education and jobs in ever greater 
numbers. Given the dearth of opportunity, however, they are 
particularly vulnerable to recruitment into militias. The U.S. 
government runs programs with local partners to develop opportunities 
for young people, strengthen conflict resolution, monitor for hate 
speech and promote peaceful messaging. If I am confirmed, Embassy staff 
and I will continue to reach out broadly to strengthen these efforts 
and expand opportunities. Mr. Chairman, Burundi's fragile economy 
continues to deteriorate, increasing Burundians' health and nutritional 
challenges. The U.S. government provides $50 million annually in USAID-
funded assistance programs, primarily to the health sector. We have 
also contributed $86 million in humanitarian assistance for refugees 
affected by the current crisis. If confirmed, I will work to ensure 
this assistance remains effective.
    I would also note that Burundi has made important contributions to 
peacekeeping, particularly countering Al Shabaab in Somalia.Finally, 
our Mission in Bujumbura has performed admirably under very difficult 
circumstances over the past year. I look forward, if confirmed, to 
working with every one of our Embassy staff, American and locally 
employed alike.
    Ensuring the continued safety of American citizens residing in 
Burundi and the security of our staff are my highest priorities.Here in 
Washington, just the other day, I saw a high-value, single-source 
coffee for sale, from Burundi. Its quality, and pledge that a good 
price had been paid to the farmer, reminded me of Burundi's promising 
prospects.
    Mr. Chairman, if confirmed, I will bring the collective experiences 
of my 23 years in the Foreign Service to advance U.S. interests; I will 
also help Burundi's people restore their nation and their lives so that 
they export products, not people, and so that when the world thinks of 
Burundi and the center of Africa, we will not dwell on their fears, but 
share with Burundians the promise of their hopes.


    Senator Flake. Thank you, all of you.
    Ambassador Pasi, with regard to Chad, you mentioned 
protecting U.S. business interests as a top priority. What U.S. 
business interests are there in Chad right now?
    Ambassador Pasi. Thank you, Mr. Chairman.
    We have U.S. business interest that is limited to the oil 
investment, the oil sector. Exxon Mobil and some partners are 
there. They run the pipeline from Chad to Cameroon. With the 
decline in oil prices, however, the associated companies in the 
oil industry have largely reduced their holdings or actually 
left Chad. So the actual American business presence is fairly 
small.
    Senator Flake. And in terms of the future, likely 
investment likely in the oil and gas industry?
    Ambassador Pasi. I think the oil and gas sector, obviously, 
depends on the price of the oil and gas around the world. If it 
does increase, Chad will have more promise in terms of 
partners. There are Canadian firms also in the oil sector, as 
well as Chinese companies and others.
    There are a few other sectors. Most Chadians are actually 
engaged in agriculture. They raise cotton. They export 
vegetables. We provide assistance to help them do a better job 
with that.
    Senator Flake. Talk about USAID assistance with regard to 
development in agriculture.
    Ambassador Pasi. Yes. So USAID is engaged in a number of 
regional projects in Chad. We do not have a USAID presence in 
Chad. We have one representative but not a standard USAID 
office as we do in many other countries. But we have regional 
programs, and one is a seed program to provide more resilient 
seeds to Chadians so that crops are more effective in that 
drought-affected country. Second, there is a cotton collective 
program for the surrounding countries, those that raise cotton, 
to promote the sale of cotton. So they are mostly regionally 
based agricultural activities from USAID, in addition to the 
Countering Violent Extremism programs that we have there.
    Senator Flake. Thank you.
    Ms. Leonard, the last panel--you heard them talk about 
sanctions. One of the panelists talked about U.N. sanctions 
really only being effective if they get AU support first. The 
African countries can come together. What do you see as part of 
your role there in this regard. For example, if we want to 
impose sanctions on the DRC, U.N. sanctions, your role in 
getting African countries through the AU to support these kind 
of actions?
    Ambassador Leonard. Thank you, Senator, for that question.
    I listened to the exchange of the previous panelists with 
great interest, and I noted not only their interest in the tool 
of sanctions but their generally shared conviction that 
sanctions as a tool works best when it is accompanied by a very 
broad strategy and shared strategy.
    And I think that what is particularly interesting about our 
relationship with the African Union is the ability to help 
build regional consensus on the founding goals that are so near 
and dear to our own goals in Africa, mainly democracy and 
governance in the context of the conversation that you just 
had. And I have quoted the President's words in my statement 
about his attachment to that issue, and whatever the merits of 
an individual discussion, clearly if a government--it is 
destabilizing insofar as political opponents are being attacked 
or aspirations are not met. And so, therefore, this question of 
democracy and governance is very much at the heart of peace and 
stability goals that are dear to the African Union, as well as 
democracy and governance.
    So if I am confirmed, I would very much see my role as 
helping to forge that consensus. The places where international 
efforts have been very successful in Africa have been when the 
United Nations, the African Union, and international partners 
worked closely together to a shared goal. My previous posting 
in Mali was a very good example of that, one which did not 
include the particular tool of sanctions, but I think the 
larger point remains and I would look forward to interacting 
with the African Union on those issues.
    Senator Flake. Thank you.
    Ms. Casper, the government in Burundi has resisted efforts 
to force them or encourage them to engage in peace talks with 
other entities and in regional peace talks as well. What can we 
do to encourage them to move in that direction? What do you see 
your role being?
    Ms. Casper. Thank you, Senator. A very important question.
    Having the Burundian Government engage in peace talks, 
along with all parties in the crisis is critical to moving 
forward Burundi in the spirit and fashion that it needs to go. 
Our Special Envoy Perriello succeeded last month in getting a 
range of actors to the table under the leadership of the East 
African Community and former Tanzania President Mkaba, and that 
is an important step that has been taken and one that we will 
continue to build on.
    If I am confirmed, I will work directly with the 
government, the highest levels of government, to continue to 
press them to engage, as well as all actors that need to come 
to the table.
    Senator Flake. Good. That is obviously important. We do not 
want this conflict to escalate. So you have got an important 
role there. So thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Casper, if I can come back to you and just follow up 
where the chairman was going in terms of this Burundi problem 
state, which it really has become.
    Last year, the president decided just to run for 
reelection, forget the constitution, and to ultimately just 
begin to set a real trend, which we are seeing in Congo and my 
fear is in Kenya and other countries in terms of just 
disregarding the constitution. The United States and the EU 
then imposed sanctions. My question to you is, how important 
was it that the United States and the EU imposed sanctions on 
Burundi from your perspective?
    Ms. Casper. Thank you, Senator.
    First of all, let me say how important I thought that the 
discussion we had in the last hour about sanctions was. 
Sanctions are part in Burundi of a broader strategy that is 
ongoing, and that I think is a critical piece of this. So 
sanctions are one piece, but it is really part of a broader 
package.
    In the Burundi case, in particular, sanctions have made 
clear that we, the U.S. Government, are committed to holding 
people who have engaged in human rights abuses and who are 
threatening peace and security in Burundi, that they are 
accountable. It is also important that we have implemented 
those sanctions impartially so that there are people on all 
sides of the spectrum who have been sanctioned, and it is based 
purely on the abuses that they have committed.
    As I noted, it is part of a broader strategy, including 
bringing people to the table, including the direct outreach 
that has occurred not just by the U.S. Government but also by 
our regional partners, the African Union, the U.N., and others.
    And finally, I would say I think it is important that 
people know generally that our sanctions are targeted against 
specific people, that they do not penalize the population in 
general, and that the United States Government stands for the 
people of Burundi, not for any particular group. And really, 
our main goal is to bring them back, help them come back to the 
spirit of Arusha, the spirit of compromise, and the spirit of 
peace.
    Senator Markey. Thank you.
    Ms. Leonard, the AU has been very slow to put pressure on 
President Kabila to adhere to the DRC constitution, and the 
chairman and I and Senator Coons--we were at the AU when 
President Obama spoke very forcefully about the need to have an 
adherence to the constitutions of the countries of Africa with 
regard to elections.
    The AU has expressed support, very dismayingly, to 
President Kabila's, quote, national dialogue, which I think is 
just widely seen as just a stall tactic. And so from my 
perspective, how do you explain the hesitancy of the AU to just 
cut right through this national dialogue and get right down to 
the bottom line, which is that he is trying to avoid having an 
election and he wants to perpetuate himself in office? So 
analyze the AU for us and why they are not stepping up.
    Ambassador Leonard. Thank you, Senator, for that question.
    I think that anyone who looks at the current events in 
Africa today and who understands the spirit of international 
coordination or regional coordination on peace and security 
matters as involving questions of prevention, as well as 
solving problems, looks at developments in the Congo and sees 
that that particular attention is very much required there now.
    I think it is often the case that the African Union has 
several subregional organizations within them, and while it is 
often true that your close neighbors are best able to diagnose 
and deal with problems, it also creates certain sensitivities 
for neighbors as well.
    The idea of dialogue is not something as a diplomat that I 
am going to object to. I do think it would be useful, for 
example, to expand those discussions very much in the spirit of 
my previous answer to the question that the world solves the 
problems best when the African Union and, for example, the 
United Nations are working together to pressure sides in a 
useful direction, in a positive direction, and one that does 
not raise the near-term prospect of dealing with later 
instability. And that would be very much the spirit of my 
interactions with the African Union, if I am confirmed.
    Senator Markey. Great.
    Ambassador Pasi, we had a hearing last month where we were 
talking about Africa, and I raised specifically a question 
about the sale of American combat aircraft to Nigeria with 
arched eyebrows almost at the ceiling when I did so. But I 
could have just as easily been talking about our security 
partnership with Chad, another partner in our fight against 
Boko Haram.
    Can you talk to us a little bit about what you think the 
appropriate balance is between governments that are just 
authoritarian, such as we see in Chad, and our partnership with 
them and the aid which we provide them which sometimes sends 
the wrong message to I think the people in their own country 
and to the rest of the region?
    Ambassador Pasi. Thank you, Mr. Senator. It is a question I 
have thought a lot about. I was Ambassador to Djibouti where we 
also provided a huge amount of military assistance. We have a 
base there. Chad is, of course, very different. We do not have 
a military base, but we provide security assistance to Chad in 
order to help them combat Boko Haram, a threat to the region 
and now with their affiliation with ISIL, a threat that goes 
far beyond West Africa and in fact might reach other regions of 
the world.
    It is a challenging problem. I am very proud that the U.S. 
Government, when we give assistance, whether it is from DOD, 
the State Department, or whichever agency it comes from, 
includes human rights and other kinds of training for those we 
are training. The human rights training, of course, helps 
soldiers and others, police, understand the basic requirements 
if they are going to be using U.S. assistance wherever they are 
going.
    We do need to provide military hardware or Chad will not be 
able to do the job that we have asked them to do, that they 
need to do. And I think we have to be careful about what we are 
giving, the messages that accompany it, and if confirmed, it 
will be a priority for me to reinforce hopefully with the U.S. 
military that is providing so much assistance in Chad, training 
and other kinds of assistance, that while we are providing for 
your security, the goal is to have a better democracy in Chad 
and in the region.
    Senator Markey. Can you just expand just a little bit? 
Because I think it is important for these words to be heard. 
Boko Haram has changed its name.
    Ambassador Pasi. Yes.
    Senator Markey. And it has changed its name to--I heard you 
say it--ISIL West Africa Province in your verbal testimony. 
What is the significance of that name change? What does that 
mean from the perspective of regional security and a U.S. 
perspective of this metastasizing ISIL threat in the region?
    Ambassador Pasi. Yes. Thank you, Senator.
    I think it is a very significant change. Boko Haram, in 
fact, just attacked a small town, a city, in Niger, and Chad 
has immediately dispatched 2,000 troops. So the name change, I 
think, shows that they want to affiliate themselves with 
something much bigger, much broader, an organization that has a 
reach into Europe and beyond. And I think it goes to show how a 
group that once was thought of as just a threat to one country 
or a small group has become the deadliest terrorist 
organization on the planet, killing thousands and thousands and 
thousands with relatively limited technology at their behest.
    Chad is, of course, very focused on regional security, and 
Boko Haram has tremendously threatened its economy, its trade 
routes, its ability with a limited economy that is very 
challenged to thrive. I think we are very lucky to have 
partners in Africa like Chad who are willing to be at the tip 
of the spear in dealing with this group, but I believe given 
its location, surrounded by many, many difficult countries, 
including Libya, that Chad will have many challenges to come. 
And we will be working even more closely with them on security 
as we move forward.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Well, we appreciate your being here and for 
having this confirmation hearing. We appreciate the family for 
being here as well.
    The hearing record will remain open until Friday. Again, if 
you get questions from other members who are not here, if you 
could please answer them as quickly as possible, it would be 
appreciated.
    Thank you again for your willingness to serve and thank you 
to the family members for being here and for enduring the 
hearing before as well. So we appreciate it. Thanks for your 
service.
    This hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


    Responses of Hon. Greta Pasi, nominated to be Ambassador to the 
      Republic of Chad, to Questions from Members of the Committee

                 ambassador-designate pasi's responses 
                to questions from senator corker cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has been a theme 
throughout my career. As a political officer in Ghana in the mid-1990s 
(1995-1997), I led U.S. efforts to promote political dialogue, 
including hosting political salon meetings that allowed political party 
representatives from dozens of parties to engage in meaningful dialogue 
in a neutral environment. This ensured that no parties would be 
marginalized in the pre-election period. U.S. engagement with all 
parties sent a powerful signal to the country and the government.
    Then, while serving in Dhaka as Deputy Chief of Mission and Charge 
(2006-2009), I led our efforts to convince the Caretaker Government 
(CTG) to first set and then adhere to a schedule for restoring 
democracy through free, fair and credible elections. At the same time, 
we advocated forcefully that the CTG should be held to high standards 
in respecting human rights during the state of emergency. The CTG 
implemented changes that benefited society and led to an elected 
government on the timetable agreed upon by the international community.
    Finally, as ambassador to Djibouti from 2011-2014, I collaborated 
with ambassadors from like-minded countries to engage with the 
opposition and coordinated on messaging to press the Government of 
Djibouti on democracy and governance concerns. Our collective efforts 
led to a dialogue with the opposition and their inclusion in political 
discussions.

    Question. What are the most pressing human rights issues in Chad? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Chad? What do you hope to 
accomplish through these actions?

    Answer. The most significant human rights problems Chad faces are 
security force abuse, poor prison conditions, and discrimination and 
violence against women and children. Other human rights abuses of 
concern include arbitrary killings by security forces and use of 
torture, arbitrary arrest and detention, and infringement on freedoms 
of expression and assembly.
    If confirmed, the most important steps I will take to promote human 
rights and democracy will be to seek opportunities to bolster the 
capacity of civil society and increase civic space and encourage the 
Government of Chad (GOC) to protect and defend the human rights of all 
citizens; as well as emphasize building and strengthening institutional 
capacity. I will press GOC interlocutors on the need for security 
forces to abide by international standards for human rights in its 
efforts to combat Boko Haram, strengthen civilian forces role in 
providing citizen security, investigate allegations of abuse, and hold 
human rights violators accountable. I will encourage the GOC to focus 
not only on addressing the immediate security threat posed by Boko 
Haram, but also the root causes of violence in the region. I will 
continue to support and push to expand USG programs to provide human 
rights training for Chadian security forces deemed eligible under the 
Leahy Law, International Criminal Investigative Training Assistance 
Program (ICITAP) to provide Countering Violent Extremism (CVE) and 
management training for Chad's prison officials, and Anti-Terrorism 
Training funded programs on rule of law for law enforcement agencies.
    I will also urge passage of the Trafficking in Persons (TIP) 
legislation, which remains pending, and seek continued anti-trafficking 
training for judicial sector personnel to increase protection for 
victims. Finally, I will also seek opportunities to engage and support 
Chadian civil society organizations in order to help guarantee 
increased civic and political space in Chad, including engagement with 
organizations that promote the protection of women and children, such 
as the House of the Woman which offers skills training to victims of 
domestic violence.
    In addition to supporting the promotion of human rights and 
democracy, by supporting these activities I hope to help foster greater 
transparency in government and elevation of citizen awareness and 
peaceful participation in formulating public policy.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Chad in advancing 
human rights, civil society and democracy in general?

    Answer. If confirmed, I am prepared to take on an ambitious agenda 
when it comes to human rights, but I am also prepared for obstacles and 
possible resistance. We noted with concern reports of abuse and 
targeting of opposition supporters following April's presidential 
election. It will be necessary to continue impressing upon the GOC the 
importance of upholding freedoms of expression and assembly and 
inclusion of all citizens in the political process, while 
simultaneously continuing to demonstrate our support for civil society.
    Within the confines of existing U.S. government resources, if 
confirmed, I will press the GOC to improve detention conditions in the 
prison system to address gross overcrowding and physical abuse. I will 
also ask other donors to collaborate with us toward this end. The 
recent addition of a regional legal advisor in N'Djamena will enable 
the Mission to begin looking at the systematic improvements to the 
judicial system and to provide an American subject matter expert to 
engage on these issues with the GOC.
    With assistance from UNICEF, Chad is engaged in a program to combat 
TIP and improve protection of women and children. Chad's current 
financial difficulties, due to low oil prices and reduced livestock and 
agricultural exports, have reduced governmental ability to sustain 
programs. We will continue to encourage Chad to carry out programs in 
place and will continue to include training on TIP in security and law 
enforcement training the USG provides.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Chad? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. I am highly committed to meeting with human rights, civil 
society and non-governmental organizations (NGOs) and local NGOs in 
Chad and will maintain an ongoing dialogue with the government, civil 
society organizations and international organizations in order to 
increase civic and political space in Chad. Uppermost in my mind will 
be promoting inclusivity and engaging with groups that traditionally 
have been marginalized such as the LGBT community.
    Embassy N'Djamena has a Leahy committee which actively coordinates 
responses for Leahy vetting for any Chadian security forces requesting 
to receive U.S. government-funded training. The Government of Chad is 
proud to include human rights training in its security force training 
programs, and I will urge the Government to continue pursuing training 
for eligible units.

    Question. If confirmed, will you and your embassy team actively 
engage with Chad to address cases of key political prisoners or persons 
otherwise unjustly targeted by the Chadian government?

    Answer. If confirmed, my Embassy team and I will continue to 
actively engage with the Government of Chad at all levels to 
successfully redress cases of any political prisoners or persons 
unjustly targeted by the Government.

    Question. If confirmed, will you engage with Chad on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes. If confirmed, protecting human rights, supporting the 
rights of civil society, and emphasizing the vital importance of good 
governance will be high priorities for the entire Mission and be 
interwoven into all aspects of our efforts in Chad.
Good Governance
          The countries of the Lake Chad Basin have acknowledged the 
        need for a comprehensive plan to defeat Boko Haram, including 
        providing civil administration and economic opportunities to 
        prevent radicalization. While Chad does not have the same 
        interreligious tensions as Nigeria, the existence of 
        marginalized and underdeveloped communities could pose a 
        challenge to national stability.

    Question. If confirmed, how do you plan to engage the Chadian 
government regarding the need for inclusive governance? What programs 
to support democracy and governance do we currently have in Chad? 
Please specify dollar amounts and accounts. What do you see as the 
greatest opportunity for the U.S. to support improvements in democratic 
practices and institutions?

    Answer. If confirmed, I will urge the Government of Chad to fully 
permit all political parties and civil society organizations to 
exercise their rights of assembly and free speech as well as its 
respect of the legal, civil, and human rights of all its citizens, and 
allow, encourage, and support Chadian citizens who exercise their 
constitutional rights peacefully. While there was no bilateral 
democracy and governance funding in Chad in FY 2015, we obligated a 
total of $426,174 in FY 2014 ESF to support regional Trans Saharan 
Counter Terrorism Partnership (TSCTP) activities in Chad, including, 
for example, to provide work skills training to students in Koranic 
schools.
Refugees
          As you referenced in your testimony, Chad is host to more 
        than 380,000 refugees from Nigeria, Sudan, and the Central 
        African Republic. Many of these individuals are living in 
        remote areas in which host populations face enormous economic 
        challenges.

    Question. Are sufficient resources available to meet the needs of 
the Sudanese and Central African refugees in Chad? If not, if 
confirmed, how will you work with Chadian and United Nations officials 
to ensure that they are?

    Answer. The international donor community has been responding on a 
sustained basis to the humanitarian crisis that started when Sudanese 
refugees began crossing into eastern Chad from Darfur over a decade 
ago. Humanitarian assistance continues to be required to assist the GOC 
to respond to recurrent crises while also strengthening the long-term 
capacity of vulnerable populations to cope with these events. However, 
donor fatigue and a record number of needs elsewhere in the world have 
reduced international assistance.
    If confirmed, I will promote programs to increase self-sufficiency 
of refugee populations. I will support ongoing discussions between the 
UN, the GOC, and local authorities to further expand refugee access to 
arable land. Furthermore, I will urge donors to fund agricultural 
extension services to refugees who farm and also urge additional 
funding for education and training programs for refugees. To date in FY 
2016, the Department's Bureau of Population, Refugees, and Migration 
(PRM) has provided $21.3 million to international organizations to 
address humanitarian needs in the Lake Chad Basin.
Regional Coordination
          Coordination mechanisms have proliferated in the Sahel as a 
        result of the Boko Haram violence and the subsequent regional 
        humanitarian crisis. The U.N. has appointed a regional 
        humanitarian coordinator and the United States has a 
        coordinator for counter-Boko Haram operations.

    Question. If confirmed, what do you see as your role within the 
context of the Lake Chad Basin coordination mechanism?

    Answer. If confirmed, I will engage closely with the Lake Chad 
Basin Commission and the Multinational Joint Task Force (MNJTF) to help 
ensure that these organizations are supporting efforts by the Lake Chad 
Basin countries (Chad, Nigeria, Niger and Cameroon) and Benin to work 
together to defeat Boko Haram. I believe the MNJTF, which is 
headquartered in N'Djamena, has an important, constructive role to fill 
in defeating Boko Haram. Specifically, the MNJTF can provide a venue 
for planning and coordination of security operations against Boko 
Haram, intelligence sharing, and oversight of security operations to 
ensure they are conducted in accordance with international human rights 
standards. If confirmed, I will work with the U.S. Special Operations 
Command and Control Element (SOCCE)-Lake Chad Basin and the U.S. 
Department of State Senior Coordinator on Boko Haram to promote 
effective U.S. support to the MNJTF and its member states.
    In addition, if confirmed, I will coordinate counterterrorism (CT) 
and countering violent extremism (CVE) policies and programs through 
the Trans-Sahara Counterterrorism Partnership (TSCTP). Specifically, I 
will ensure all U.S. funded CT and CVE programs in and affecting Chad 
are coordinated through existing TSCTP synchronization processes--
closely involving my development and defense colleagues at Post, in 
Germany, in Washington, and in the Sahel and Maghreb regions. These 
coordination efforts through TSCTP will also help us design and 
implement CT and CVE investments complementary to our French, EU, and 
other foreign colleagues' related efforts.

    Question. What mechanism exists for international regional 
coordination on humanitarian and counterterrorism issues across the 
Sahel and Maghreb?

    Answer. One mechanism for coordination of counterterrorism efforts 
across the Sahel is continued partnership with the French. The French 
government has placed its headquarters for all military operations in 
the Sahel and Maghreb in N'Djamena. This French military effort is 
named OPERATION BARKHANE. Through the Defense Attache Office and other 
military components under AFRICOM's purview, we are supporting French 
operations across the Sahel in shared initiatives to combat trans-
regional terrorism. Many of these initiatives involve combined 
intelligence, surveillance and reconnaissance efforts, to share more 
intelligence on nefarious actors, as well as training anti-terrorism 
units.
    In addition to the security benefits noted above, the MNJTF, in 
close coordination with the Lake Chad Basin Commission (LCBC), has been 
developing a Civil-Military capability to address the humanitarian 
aspects of the Boko Haram conflict. The United States has also been 
providing assistance to this effort via our representatives to the 
Center for Coordination and Liaison (CCL).
    The Sahel countries have also developed the G5 Sahel initiative to 
encourage greater coordination on regional issues such as terrorism and 
humanitarian relief. N'Djamena hosted a summit of the G5 Sahel in 
November 2015 and Chad, as the current president, continues to be a key 
partner in the group. Additionally, given the G5's mandate to 
coordinate and monitor regional cooperation, it would be an appropriate 
African forum to assume the responsibility of counterterrorism 
coordination in the Sahel.
    International regional coordination on humanitarian issues falls to 
U.N. agencies such as the United Nations Office for the Coordination of 
Humanitarian Assistance (OCHA) and the World Food Program. For example, 
in response to the crisis in the Lake Chad basin, OCHA has issued 
appeals and provides periodic sitreps on the status of assistance 
programs in that subregion. The U.N. World Food Program similarly 
coordinates food aid to the region and has a regional emergency 
operation for the Lake Chad basin towards which USAID committed $4.0 
million in FY 2015 and $5.1 million in FY 2016.

    Question. What will be your role, if confirmed, in participating in 
interagency coordination efforts for the Trans-Sahara Counterterrorism 
Partnership?

    Answer. If confirmed, my role in participating in interagency 
efforts for the Trans-Sahara Counterterrorism Partnership (TSCTP) will 
be to advocate for an appropriate mix of 3D (diplomacy, defense, and 
development) resources to respond to the specific needs of Chad and to 
ensure that these resources are programmed to have maximum impact.
    U.S. Embassy N'Djamena currently participates in the TSCTP through 
several offices. The Democracy and Development Office works with TSCTP 
on development projects. Additionally, the Regional Security Office has 
been extremely active in maximizing use of the TSCTP Antiterrorism 
Assistance (ATA) Program to provide training for Chadian police and 
security forces and the Department of Defense's Office of Security 
Cooperation has provided, via the TSCTP, vehicles, as well as medical, 
communications and Personal Protective equipment to Chadian military 
forces engaged in fighting Boko Haram. If confirmed as Ambassador, I 
will ensure that U.S. Embassy N'Djamena continues to maximize the 
impact of the support provided by the TSCTP, that we encourage Chadian 
participation in TSCTP efforts and that we continue to maintain open 
and continuous dialogue on the impacts of TSCTP efforts in Chad as well 
as the future direction of the partnership.

                               __________

 Responses of Mary Beth Leonard, nominated to be Representative of the 
 United States to the African Union, to Questions from Members of the 
                               Committee

             representative-designate leonard's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have had the privilege of addressing human rights 
concerns throughout my Foreign Service career, from my very first tour 
following the trial of a Cameroonian opposition figure. In Mali, I 
received the Diplomacy for Human Rights prize in 2013, awarded each 
year to one U.S. ambassador for notable achievement in promoting 
democracy and human rights. My actions there included speaking out 
early and forcefully for a rapid return to elected governance after the 
2012 coup; forestalling potential violations by engaging leaders from 
groups with records of violations in previous political eras to make 
clear both U.S. disapproval and dispel any notion that inter-communal 
violence was consistent with any concept of Malian patriotism; seeking 
accountability for crimes and excesses by the military junta; and 
calling out mistreatment of journalists. For example, when Mali's 
elected government bravely investigated the disappearance, and presumed 
murder, of 21 Malian troops who were loyal to Mali's deposed president, 
I encouraged my team to find a mechanism to support this investigation 
by identifying and funding forensic expertise and exhorting the 
Government of Mali (GOM) to ensure the security of judicial authorities 
involved in the investigatory process and trial. These efforts 
supported Mali's newly elected government's decision to arrest and 
prosecute coup d'etat leader Captain Sanogo and other junta members.
    A free press is another important guarantor of human rights. Once 
lauded by Freedom House as having the most liberal press environment on 
the continent, Mali suffered multiple incidents after the coup in which 
journalists were intimidated, beaten and detained without charge. I 
became the first to denounce the March 6, 2013, arrest of local editor 
Boukary Daou, who was tortured after his newspaper printed a letter 
criticizing coup leader Sanogo. Within hours of his disappearance, I 
spearheaded efforts to coordinate a diplomatic community effort to 
press the GOM to respect human rights, free speech, and freedom of the 
press, and called out in public events for his release. Mr. Daou 
credits this activism with helping secure his freedom, and linked the 
end of his physical mistreatment in detention to his jailors' 
acknowledgment of my public expressions of interest and concern.

    Question. What are the most pressing human rights issues on the 
continent? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy? What do you hope to 
accomplish through these actions?

    Answer. Groups that perpetrate violent extremism are among the most 
serious threats to human rights in Africa. In Nigeria, Cameroon, Chad, 
and Niger, deadly attacks and abductions by Boko Haram continued to 
terrorize thousands of civilians. Nigerian security forces' heavy-
handed tactics and abuses of civilians, including extrajudicial 
killings, contributed to the mutation of Boko Haram into an insurgency.
    Further democratic consolidation in Africa is also dependent on 
rights-respecting security forces that answer to civilian governments 
and protect, rather than target, citizens. This is, unfortunately, a 
persistent challenge across the continent, and one that we raise 
regularly with our government counterparts as part of our efforts to 
build strong democracies and meaningful security partnerships. In 
countries where security forces have questionable human rights records, 
citizens require access to justice, in order to hold both states and 
other citizens accountable for breaches of the law.
    As part of our promotion of real and inclusive democracy, we remain 
concerned by the threats to freedom of speech and the press, as well as 
the right to assemble. These rights are universal, and they are written 
into many African constitutions. Unfortunately, not all governments 
regularly abide by what those constitutions say. Many of these 
governments seek to close space for political opposition and civil 
society, as well as restrict media access, well before election day. 
These governments often control the flow of information through state-
owned media, restrict or close down access to the internet, and harass 
and arrest journalists. Impunity and lack of investigation by officials 
when journalists are killed create an environment of intimidation and 
fear for the media. These same governments also limit freedom of 
assembly and expression--they intimidate civil society activists, and 
arrest or ``disappear'' members of the opposition, often under the 
guise of promoting state security.
    The AU explicitly allows for the right to take up member country 
issues relating to war crimes, genocide, and crimes against humanity. 
Promoting democracy and human rights are the first of four pillars of 
U.S. policy towards Sub-Saharan Africa. As Ambassador, I would work 
with the AU in order to counter violent extremism and promote inclusive 
democratic processes across the continent. We do this by supporting and 
empowering reformers and institutions of government at all levels to 
promote the rule of law, strengthen checks on executive power, and 
incorporate responsive governance practices. Accountability, access to 
justice, and an independent media are all necessary conditions for long 
term stability and development. Ensuring that elections and 
institutions are as inclusive as possible, including ethnic, religious, 
and other minorities as well as other disadvantaged groups is a key 
element in our strategy. We also support those leaders who abide by 
their constitutions to step down after their time in office, respecting 
term limits and allowing for the peaceful transition of power. If 
confirmed, I would continue to pursue these themes as they arise, 
encouraging the AU to build on its record of defending these important 
principles.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the African Union 
(AU) in advancing human rights, civil society and democracy in general?

    Answer. As with all multilateral organizations, the AU can only be 
as strong and effective as its member states allow it to be. Individual 
countries' interests will not always align with the broader interests 
of the union as outlined in its Constitutive Act, creating potential 
frictions.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
human rights NGOs in the context of your responsibilities at the AU? If 
confirmed, what steps will you take to pro-actively support the Leahy 
Law and similar efforts, and ensure any U.S. security assistance and 
security cooperation we may provide in support of AU institutions or 
efforts reinforces human rights?

    Answer. Yes. These organizations and the work that they do are 
essential to strengthening human rights adherence and meeting U.S. 
objectives in Africa. If confirmed, I will ensure that USAU actively 
seeks their input and applies their expertise in the development of 
U.S. security assistance and cooperation. If confirmed, I will ensure 
that all U.S. bilateral assistance in support of African Union 
institutions is in compliance with U.S. law and encourage AU 
institutions to reinforce human rights and rule of law.

    Question. If confirmed, will you and your embassy team actively 
engage with AU leadership to address cases of key political prisoners 
or persons otherwise unjustly targeted across the continent?

    Answer. Yes.

    Question. Will you engage with AU leadership on matters of human 
rights, civil rights and governance as part of your multilateral 
mission?

    Answer. Yes. I am pleased that many human rights and non-
governmental organizations maintain Addis Ababa--or regionally-based 
missions, and/or are themselves accredited as observers to the AU, 
helping to contribute to an environment of awareness and activism for 
these important issues.

    Question. Despite the existence of an AU Convention on Preventing 
and Combatting Corruption and the initiative of certain leaders to 
address the issue domestically, corruption remains a key challenge to 
economic development and good governance in many places across the 
continent.

  <diamond> What do you see as the most destabilizing form(s) of 
        corruption on the continent [i.e. grand vs petty]?

    Answer. At a fundamental level, all forms of corruption, including 
petty and grand corruption, hamper a society's ability to achieve 
stability and prosperity. While the impacts of grand corruption result 
in spectacular amounts of resources being misappropriated, petty 
corruption robs citizens of funds needed to feed families, pay for 
school and medical fees, and save for the future. To separate petty 
from grand corruption is to draw an artificial line between activities 
that have the same effects: destabilization, a lack of confidence in 
public leaders, ineffective institutions and robbing countries of 
precious resources necessary to propel themselves forward economically 
and protect their citizens. Our fight against corruption must be a 
whole-problem approach, and we need to ensure we deliver a strong 
message of zero tolerance to all corrupt officials regardless of 
station or duty.

    Question. What is the AU's role in combatting corruption and how 
does it compare with that of the regional economic communities? What do 
you see as the main obstacles to the AU fulfilling this role [i.e.: 
lack of political will, technical capacity, few connections to civil 
society, some combination]?

    Answer. The African Union's role in combatting corruption is in its 
powerful forum that draws together all African leaders in one place to 
talk about problems, including corruption, that face the continent as a 
whole. It is a place where the countries of Africa can collectively 
formulate and establish principles and standards by which all members 
can hold each other accountable.
    The ability of the AU to convene all 54 members of the African 
continent complements the work of the regional economic communities, 
which also work to collectively address the effects of corruption in 
their specific communities. The AU provides an opportunity for the 
whole membership to take ideas borne out of the regionally focused 
economic communities and find ways to adapt policies to suit the needs 
of the differing members of the AU.
    The AU, much like the African continent, faces a combination of 
challenges in combating corruption. They include a shrinking civil 
society space, lack of strong civil society participation, and lack of 
political will. Civil society does not have the ability to bring cases 
before the African Court in a majority of the AU member states, and in 
places where corruption exists, ruling parties have a vested interest 
to keep it that way. The African Peer Review Mechanism, a policy group 
for self-assessment for good governance and reinforcement of best 
practices, is underutilized by its members. There are also some within 
both the rank and file and leadership of the AU who do not want to 
raise the profile of the fight against corruption.

    Question. If confirmed, how will you use your office to encourage 
tangible progress and further coordination on anti-corruption efforts?

    Answer. If confirmed, I will continue to advocate for the 
implementation of the standards and principles that the AU has already 
set forth as a baseline for combating corruption on the African 
continent which are outlined in AU Convention against Corruption, and 
encouraging AU members who have not joined the AU Convention against 
Corruption to join. I will engage with the members of the AU who have a 
genuine interest in battling corruption and impunity to break ranks 
with those who are interested in maintaining the status quo, and 
encourage members to enforce standards.
    I will also focus on discrete efforts to mainstream anti-corruption 
into AU Peace and Security Commission activities; especially ensuring 
adequate safeguards are in place to mitigate leakage in AU PKO 
operations.

                               __________

Responses of Anne S. Casper, nominated to be Ambassador to the Republic 
         of Burundi, to Questions from Members of the Committee

                ambassador-designate casper's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have promoted human rights and democracy throughout my 
23-year Foreign Service career. For example, as Public Affairs 
Counselor Bangkok (2006-2009) and in coordination with Embassy Rangoon, 
I led regional efforts to strengthen the Burmese people's understanding 
of democratic processes, counter regime censorship, and provide global 
attention to Burma's plight, contributing to Burma's recent democratic 
transition.
    As Deputy Chief of Mission Kigali (2009-2012), during a period I 
was serving as Charge d'affaires, I led our Embassy's successful 
efforts to secure the timely release of an American arrested by the 
Rwandan government for his writings on the 1994 genocide, a case that 
received global attention from free speech activists.
    As Consul General in Jeddah (2012-14), my commitment to strengthen 
non-governmental organization capacity, including groups expanding 
opportunities for women and young people, contributed to the 
development of a nascent civil society in Saudi Arabia's Western 
province.
    If confirmed as Ambassador to Burundi, I will make human rights and 
democracy one of my top priorities and will ensure that our staff at 
Post do the same.

    Question. What are the most pressing human rights issues in 
Burundi? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Burundi? What do 
you hope to accomplish through these actions?

    Answer. Since the crisis began in April 2015, over 540 people have 
been killed and more than 260,000 have fled to neighboring countries. 
Reports of human rights violations and abuses include extrajudicial and 
retaliatory killings, arbitrary detentions, disappearances, trafficking 
in persons, sexual violence against women and girls, and torture. Civil 
society and media representatives have fled the country due to 
harassment and limits on the exercise of freedoms of association and 
expression. I will work, if confirmed, to establish strong 
relationships at the highest levels of Burundi's government and with 
influential interlocutors on all sides of the conflict. The Embassy 
will continue to support human rights monitoring and documentation by 
the U.N. Office of the High Commissioner for Human Rights (OHCHR) and 
the African Union (AU); it will also continue to monitor for hate 
speech and support conflict prevention and resolution activities for 
at-risk youth. The Embassy will also continue to promote accountability 
for perpetrators of unlawful violence, violations, and abuse. These 
activities and engagement are intended to lay the groundwork to 
dissuade violence and impunity and lead to a more peaceful atmosphere 
in which meaningful dialogue among Burundians can ensue.

    Answer. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Burundi in 
advancing human rights, civil society and democracy in general?
    Potential obstacles include the fact that the government has not 
yet fulfilled the commitments it made to the U.N. Secretary General and 
AU Heads of State delegation earlier this year regarding the release of 
detainees, the unfettered ability of media and civil society to 
operate, and the full deployment of AU human rights monitors and 
security experts.
    Additionally, many interlocutors in civil society, the media, and 
local human rights organizations with whom an Ambassador would normally 
engage have fled. Finally, ongoing violence by the government and 
opposition groups, continuing recruitment of youth into militias, the 
rapid decline of Burundi's economy, and significant problems with 
corruption present challenges related to human rights.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Burundi? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to meeting with individuals 
and organizations in the United States and Burundi who can play a 
positive role in advancing human rights, peace and security in Burundi. 
Likewise, under my leadership, Embassy Bujumbura will continue to 
engage closely with civil society partners, the East African Community 
(EAC), the AU, the UN, and like-minded foreign missions in supporting 
these goals for the benefit of all Burundians.
    Under my leadership, Embassy Bujumbura will continue its role in 
carefully and thoroughly vetting the limited number of Burundian 
military officers that the United States currently trains. This is 
particularly important given allegations of sexual exploitation and 
abuses against Burundian peacekeepers in Somalia and the Central 
African Republic as well as allegations that Burundi's security forces 
committed various human rights violations at home. Should political and 
security conditions permit a return to broader training, I will act in 
accordance with our law and policy, including the Leahy law, to ensure 
that future assistance does not go to security force units if we have 
credible information of gross violations of human rights.

    Question. Will you and your embassy team actively engage with 
Burundi to address cases of key political prisoners or persons 
otherwise unjustly targeted by Burundi?

    Answer. Yes. If I am confirmed, Embassy Bujumbura will continue 
pressing the government to respect the rights of political prisoners, 
as well as members of civil society, media, and peaceful opposition who 
may be unjustly targeted.

    Question. Will you engage with Burundi on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. Promoting human and civil rights as well as good 
governance will continue to be at the core of Embassy Bujumbura's work. 
For example, the Embassy's continued institutional support for the 
National Independent Human Rights Commission in Burundi helps this 
Commission facilitate citizens' ability to file complaints about human 
rights violations. In addition, I will engage directly with the 
Burundian government on issues related to its compliance with its human 
rights obligations and commitments and help strengthen its democratic 
institutions.

    Question. The United Nations Peacebuilding Fund (PBF) transferred 
$2.26 million to the African Union Commission just over a month ago to 
fund 32 AU human rights monitors deployed to Burundi since last July. 
What is the status of the deployment of the full complement of human 
rights monitors and military experts approved by the African Union? 
Will you have a role as Ambassador in advocating for their deployment?

    Answer. The deployment of the full complement of the AU's 100 human 
rights observers and 100 security experts, of which 35 are currently on 
the ground, has been delayed. The Memorandum of Understanding between 
the AU and the Burundian government on these observers and experts has 
yet to be signed and the government has declined, thus far, the entry 
of additional monitors into Burundi. If confirmed, I will raise this 
issue with the government, in close coordination with the AU.

    Question. Do the monitors have full and unfettered freedom of 
movement throughout Burundi? What if any will be your role in helping 
secure agreement for such access if confirmed?

    Answer. The AU observers, along with OHCHR observers, have access 
to some prisons and are able to conduct interviews privately with 
detainees, including at centers controlled by the Burundian National 
Intelligence Service. However, we understand that once on site, 
observers often confront limitations and obstacles including the sudden 
removal of prisoners from their cells just before the observers arrive.
    If I am confirmed, our Embassy will continue to press the Burundian 
government for unfettered access for both of these monitoring groups so 
that they can fulfill their critical missions, as intended and 
mandated.

    Question. How might your experience as a high ranking diplomat in 
Rwanda affect your dealings with the Nkurunziza government and regional 
leaders?

    Answer. My previous experience in the Great Lakes region sensitized 
me to the importance of listening to and engaging with a broad array of 
stakeholders, especially when historical narratives differ. It also 
convinced me that East African Community member states must continue 
working cooperatively to advance peace, prosperity, and long-term 
stability in the region. If confirmed, I will bring to my engagement 
with Burundi's government the commitment to understand their 
perspective and to work constructively together to ensure that every 
Burundian has the opportunity for a productive and secure future. I 
will also work closely with my U.S. counterparts in neighboring 
missions to advance these goals.

    Question. What funds are currently available for governing justly 
and democratically in Burundi? Please specify accounts and levels. If 
confirmed, what types of democracy and governance programs will you be 
recommending for Burundi given its closed political space?

    Answer. There is multi-year funding for USAID programs to support 
democracy and governance in Burundi. Embassy Bujumbura is slated to 
receive $1.25 million in Economic Support Fund (ESF) resources in FY 
2016. With this funding, Embassy Bujumbura intends to continue 
strengthening citizens' active participation in economic, political, 
governing and other critical processes aimed at creating a more 
peaceful, democratic, and pluralistic society. The Embassy will also 
continue to support civil society organizations, particularly those 
focused on youth empowerment, in order to increase constructive 
community participation and build resilience to violence. FY 2016 
funding will also support civil society activities to mobilize and 
engage youth around social cohesion and livelihood initiatives, 
breaking down socio-economic barriers and enhancing conflict resolution 
skills.
    It is critical, particularly in Burundi's challenging current 
environment, that the United States continues to support Burundi's 
independent media and journalists, youth leaders from diverse 
backgrounds, civil society groups and human rights defenders. If 
confirmed, I will work to ensure continued implementation of programs 
that demonstrate promise, and explore additional ways to strengthen 
credible local actors' peacebuilding efforts.

                               __________


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 21, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                              ----------                              

Anne Hall, of Maine, nominated to be Ambassador to the Republic 
        of Lithuania
Hon. Marie L. Yovanovitch, of Connecticut, nominated to be 
        Ambassador to Ukraine
Hon. Geoffrey R. Pyatt, of California, nominated to be 
        Ambassador to the Hellenic Republic of Greece
Hon. Douglas Allan Silliman, of Texas, nominated to be 
        Ambassador to the Republic of Iraq
Hon. Peter Michael McKinley, Virgina, nominated to be 
        Ambassador to the Federative Republic of Brazil
Lawrence Robert Silverman, of Massachusetts, nominated to be 
        Ambassador to the State of Kuait
Carol Z. Perez, of Virginia, nominated to be Ambassador to the 
        Republic of Chile
                              ----------                              


    The committee met, pursuant to notice, at 2:34 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Johnson, Gardner, Cardin, 
Menendez, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I want to apologize to our outstanding 
Foreign Service people that we are a few minutes late. We had 
something we were all doing together just a moment ago. We had 
a couple folks come in late, by we are thankful that people 
like you want to serve our Nation in the way that you do.
    Today's hearing is going to be very brief, out of no 
disrespect. I know many of you have prepared extensively, and 
we apologize. You are probably not going to need a lot of the 
preparation, but we thank you so much for your service. We had 
the opportunity to meet with many of you individually and we 
thank you for that. And we look forward to a very successful 
hearing.
    And with that, I will turn to Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. And, Mr. Chairman, I met with several of 
the nominees, and I warned them do not be offended if we do not 
ask you a lot of questions today.
    I was commenting to the chairman I do not think we have had 
a more qualified group of nominees come before our committee, 
people who have performed more public service than the seven 
that are appearing here today. And I thank them all for their 
public service. These are career diplomats who have served in 
some of the most difficult places in the world and have served 
with great distinction. We thank each of you and we thank your 
families particularly because we know this is a family 
sacrifice, a family commitment, and we thank you for that.
    I just want to make an observation. If my math is correct, 
the seven nominees here have served in about 25 different 
important positions as ambassadors, DCMs, or deputy 
secretaries. That is an impressive list. But just as 
impressively, if you are going to have to translate this 
transcript into all the languages they can speak, we are going 
to have to use 11 different translations, including Portuguese, 
Mandarin, Arabic, and Russian. So this is a group of people who 
are well accomplished. They have done great things in very 
difficult positions and are now willing to take on some very, 
very key responsibilities, and we look forward to their 
service. And we look forward to this hearing.
    The Chairman. I know that is widely felt throughout the 
committee. I have a long opening statement, but we have got 
something on the back end of this that is pressing us.
    So without doing that, I would say to each of you when you 
give testimony, if you would like to introduce family members, 
whatever, we would welcome that. We thank them for their 
commitment to our Nation and their support of you, and we 
appreciate them also being here.
    So with that, I guess Durbin and Collins----
    Senator Cardin. Senator Collins.
    The Chairman. We filibustered for just a moment.
    Senator Collins. I am so sorry.
    The Chairman. We thank you for being here. I know you have 
had something else relative to gun control, but we thank you 
for being here.

               STATEMENT OF HON. SUSAN COLLINS, 
                    U.S. SENATOR FROM MAINE

    Senator Collins. Thank you very much, Mr. Chairman, Senator 
Cardin, members of the committee.
    First of all, let me express my deep appreciation for your 
delaying the start of this hearing and my sincere apologies for 
being late. We all have had those kinds of days and this is one 
of those for me.
    It is my pleasure to introduce the President's nominee to 
be our next Ambassador to Lithuania, Anne Hall, a career member 
of the Foreign Service. She not only has a distinguished career 
in the Foreign Service with the expertise in the Baltic States, 
but she also has strong ties to the great State of Maine.
    Earlier this month, Anne and I discussed her qualifications 
for this position and the current challenges facing Lithuania, 
including Russian meddling in the Baltic States. I am impressed 
both by Anne's extensive experience in the region and her 
clear-eyed view of the challenges facing this relatively small 
but critically important NATO ally. I am certain that Anne 
would do an excellent job representing the United States in 
Lithuania as she has done throughout her career in the Foreign 
Service.
    Now let me tell you just a bit about Anne's background. She 
grew up in Orono, Maine and graduated from the University of 
Maine where she studied international relations. She is now 
officially a resident of Blue Hill, Maine and spends time there 
between her oversea tours in Europe, Asia, and South America.
    Anne's father was chairman of the geology department and a 
vice president of the University of Maine. His experiences in 
geological mapping in Maine, Antarctica, India, Africa, and 
Eastern Europe inspired Anne to become an exchange student to 
Chile at age 16 and later to join the Foreign Service.
    Anne has extensive experience in the Baltics. She served as 
the State Department's Office of Nordic and Baltic Affairs in 
that office from 2001 to 2003. This was a critical time for the 
region as the U.S. worked to support the Baltic countries' 
entry into NATO and the European Union, both of which they 
joined in 2004.
    Then she served as Consul General in Krakow, Poland from 
2006 to 2009, Deputy Chief of Mission in Lithuania from 2010 to 
2013, and Director of the Office of Central European Affairs 
from 2013 to 2014. These experiences have prepared her to lead 
our mission in Lithuania and strengthen our already close 
partnership with this country.
    Mr. Chairman, I am often called upon to introduce nominees, 
and I have to say that I cannot think of someone who has a 
background that is better tailored to the position for which 
she has been nominated than Anne Hall. And it is a great 
pleasure to be here today before this distinguished committee.
    Thank you.
    The Chairman. Well, thank you very much for taking the time 
to be here. As we mentioned before you got here, we are 
impressed with all of our candidates and thank them for their 
service.
    I know you have other business and you are welcome to go do 
other business is you wish. Thank you.
    So with that, Ms. Hall, why do you not go ahead and begin. 
I know that you are going to summarize in about 3 minutes, and 
any written comments that you would like to be a part of the 
record, without objection----
    Ms. Hall. I will try to make it less even.
    The Chairman. Well, thank you so much.

STATEMENT OF ANNE HALL, OF MAINE, NOMINATED TO BE AMBASSADOR TO 
                   THE REPUBLIC OF LITHUANIA

    Ms. Hall. Mr. Chairman and distinguished members of the 
committee, it is indeed a privilege to appear before you today 
as President Obama's nominee to serve as the Ambassador to the 
Republic of Lithuania. I am honored by the trust and confidence 
President Obama and Secretary Kerry have placed in me. If 
confirmed, I look forward to working with you and your 
colleagues to build on our already close strategic partnership 
with Lithuania.
    With your permission, I would like to acknowledge my mother 
Rose Anne who is here today from Maine, my father Brad who is 
watching this in Maine.
    The Chairman. If you all would identify yourselves. Thank 
you.
    Ms. Hall. I am forever thankful to them for their constant 
support over the years.
    I am also delighted to have my sister Sue, her husband 
Scott, and my niece Emma who aspires to joining the Foreign 
Service some day, here today from Colorado.
    Mr. Chairman, if confirmed, it would truly be an honor for 
me to return to Lithuania where I served as Deputy Chief of 
Mission until 2013.
    The United States has long enjoyed a close partnership with 
Lithuania, founded on the bedrock of the United States' refusal 
to recognize the incorporation of Lithuania into the Soviet 
Union. Today we take inspiration from our close cultural ties 
and shared democratic values, and together we promote security 
and prosperities for our peoples and around the world.
    Lithuania is one of our closest NATO allies. It has warmly 
welcomed U.S. and NATO reassurance measures, especially the 
presence of American troops on its soil. Lithuania also has 
committed to spending 2 percent of GDP on defense by 2018, 
reaching 1.5 percent this year.
    Long a staunch and vocal supporter of Ukraine, Lithuania 
works to maintain a strict sanctions regime on Russia and full 
implementation of the Minsk agreements.
    Outside of Europe, Lithuania supports development of the 
Afghan National Security Forces and contributes to the counter-
ISIL coalition. It has donated humanitarian assistance to Iraqi 
victims of ISIL and is preparing to deploy police trainers to 
Iraq.
    Over the past few years, Lithuania has reduced its 
dependence on Russian gas from 100 percent to just about 5 
percent today, becoming a model for others seeking to enhance 
their own energy security.
    And Lithuanian policymakers and the private sector welcome 
American trade and investment and support the Transatlantic 
Trade and Investment Partnership, which they see as an 
opportunity for economic growth, as well as a second anchor in 
the security partnership.
    Mr. Chairman, if confirmed, I will seek to deepen our ties 
across the board from people-to-people exchanges and 
entrepreneurship to trade, investment, and innovation, energy 
security, and promotion of our shared democratic values. The 
success of our efforts in all of these areas ultimately rests 
on the strong friendship between Lithuanians and Americans. If 
confirmed, I will make public outreach throughout the country 
for myself and my embassy team a high priority.
    Thank you again, Mr. Chairman, for this opportunity to 
appear before you today, and I look forward to your questions.
    [The prepared statement of Ms. Hall follows:]


                    Prepared Statement of Anne Hall

    Mr. Chairman, Ranking Member Cardin, distinguished members of the 
committee, it is a privilege to appear before you as President Obama's 
nominee to serve as the next United States Ambassador to the Republic 
of Lithuania. I am humbled and honored by the trust and confidence 
President Obama and Secretary Kerry have placed in me. If confirmed, I 
look forward to working with the committee, your staffs, and your 
Congressional colleagues to build on the already deep and productive 
partnership between the United States and Lithuania.
    Mr. Chairman, with your permission, I would like to acknowledge 
some family members who are here today, as well as some who were unable 
to attend. I am deeply grateful to my mother, Rose Anne, who is here 
today, and my father, Brad, who will watch this later from Maine, for 
inspiring me to explore the wider world and supporting me at every step 
along the way. I am also delighted that my sister Sue, her husband 
Scott, and my niece, Emma, were able to come from Colorado to be here 
today.
    For 29 years I have cherished the privilege of serving my country 
as a career diplomat in Europe, Asia, and South America. I believe my 
experience in our Office of Nordic and Baltic Affairs at a critical 
time as we supported the Baltic states' entry into NATO and the 
European Union, my service as Consul General in Krakow and Deputy Chief 
of Mission in Lithuania, and more recently as Director of our Office of 
Central European Affairs, equip me well to lead our mission in 
Lithuania.
    The United States has long enjoyed a close relationship with 
Lithuania. It is a relationship built on the bedrock of America's 
steadfast refusal to recognize the incorporation of Lithuania into the 
Soviet Union and the partnership of the United States with an 
independent Lithuania in addressing today's global challenges to 
democracy and security.
    Since its re-independence in 1990, Lithuania has taken on 
increasingly prominent roles in transatlantic and global institutions 
to meet these challenges--roles that would have been unimaginable just 
26 years ago. Since joining NATO and the EU in 2004, Lithuania has 
chaired the Community of Democracies and the Organization for Security 
and Cooperation in Europe, and in 2013 became the first post-Soviet 
state to hold the Presidency of the European Union. In that capacity it 
championed democratic principles in other countries of the former 
Soviet Union and hosted the Eastern Partnership Summit that became an 
antecedent to the Maidan protests in Ukraine. During Lithuania's 2014-
2015 tenure on the U.N. Security Council, it actively partnered with 
the United States to promote peace, combat terrorism, and advance human 
rights on a global scale.
    Lithuania has long been a staunch and outspoken supporter of 
Ukraine. Since 2014, it has worked with us to maintain a strong 
sanctions regime on Russia and press for full implementation of the 
Minsk Agreements. Lithuania has provided generous help to Ukraine in 
the form of advisors, development aid, and military training and 
supplies as it assists the Ukrainian government on the path of improved 
security, transparency, and rule of law. In addition, Lithuania 
strongly supports the Euro-Atlantic integration of Georgia and Moldova.
    In Russia's attempted annexation of Crimea and aggression in 
Ukraine, Lithuania sees a threat to its own hard-won independence. 
Lithuania has warmly welcomed U.S. and NATO reassurance measures, 
especially the presence of American troops on its soil. Lithuania also 
has committed to meeting the NATO defense spending benchmark of two 
percent of GDP by 2018, reaching 1.5 percent this year. The government 
is using these funds to improve Lithuania's defense capabilities, 
investing in modern equipment and enhancing NATO interoperability.
    A committed ally outside of Europe as well, in Afghanistan 
Lithuania led a Provincial Reconstruction Team, and its Special 
Operations Forces served alongside ours without caveat until 2015. 
Lithuania now provides support for the development of the Afghan 
National Security Forces and contributes to the Counter-ISIL Coalition. 
It has donated humanitarian aid to Iraqi victims of ISIL and is 
preparing to deploy police trainers to Iraq. If confirmed, I will 
continue our close cooperation in addressing global security 
challenges.
    The strength of any country depends on its economic prosperity as 
well as its security, and Lithuania's economy has shown both resilience 
and growth. After a 15 percent drop in GDP in 2009, Lithuania's economy 
rebounded to become one of the fastest growing in the EU. When 
Lithuania's primary export market--Russia, contracted last year, 
Lithuania succeeded in finding alternative markets for its exports. Its 
GDP now is predicted to grow by 2.6 percent this year. Over the past 
few years, Lithuania has made impressive progress in diversifying its 
energy sources, bolstering its own energy security as well as that of 
the Baltic region. It launched a floating LNG terminal in January, 
2015, decreasing its dependence on Russian gas from 100 percent to 
approximately five percent today. In close cooperation with the EU it 
is building gas and electricity links to its European neighbors; and it 
is creating a competitive regional energy market. Lithuania is rapidly 
becoming a regional energy hub and a model for others seeking to 
enhance their energy security.
    Against this backdrop of growth and development, Lithuanian 
policymakers and the private sector support the Transatlantic Trade and 
Investment Partnership (T-TIP). They see it as an opportunity for 
economic growth as well as a second anchor in the transatlantic 
security relationship. The United States is Lithuania's seventh largest 
trading partner, with more than $1.5 billion in total bilateral trade 
in 2015. If confirmed, I will encourage Lithuania's continued support 
for T-TIP and work to expand our trade and commercial ties, including 
support for innovation and entrepreneurship. Lithuania has made great 
strides over the past twenty years in building a vibrant democracy. It 
has developed strategic plans and passed legislation to fight 
corruption, combat human trafficking, and reduce domestic violence. It 
is working to fully integrate linguistic minorities into Lithuanian 
society and strengthen respect for religious and ethnic diversity. Our 
Embassy in Vilnius has vigorously supported these efforts, and if 
confirmed, I will continue this vital support.
    Finally, the success of our efforts in all of the areas I have 
touched upon today ultimately rests on the strong friendship between 
Lithuanians and Americans. If confirmed, I will make public outreach 
throughout the country a high priority, promoting increased exchanges 
and business, educational, professional, and cultural connections.
    Mr. Chairman, thank you again for this opportunity to appear before 
you today. I look forward to answering your questions.


    The Chairman. We thank you for your enthusiasm and 
willingness to do this.
    And with that, the Honorable Marie Yovanovitch, who is on 
her way to Ukraine.

    STATEMENT OF HON. MARIE L. YOVANOVITCH, OF CONNECTICUT, 
             NOMINATED TO BE AMBASSADOR TO UKRAINE

    Ambassador Yovanovitch. Chairman Corker, Ranking Member 
Cardin, members of this committee, it is an honor to appear 
before you today as President Obama's nominee to serve as the 
U.S. Ambassador to Ukraine. If confirmed, I look forward to 
working with this committee and the Congress to continue our 
strong support for the Ukrainian people, Ukraine's reform 
agenda, and its sovereignty and territorial integrity. These 
steps are critical to advancing our shared goal of a Europe 
whole, free, and at peace.
    And with your permission, I would like to introduce my dear 
friend, Jennifer Parmaley, and my wonderful mother who is 
sitting here, Nadia.
    The Chairman. I understand Nadia is on her way to Ukraine 
also. Is that correct? [Laughter.]
    Ambassador Yovanovitch. And I know that my father is also 
with us in spirit as well.
    Like so many in Europe in the 1940's, including those in 
the Ukrainian American community, my parents survived poverty, 
war, and displacement. They finally arrived in the United 
States with me in tow in search of freedom, accountability, and 
opportunity, the very values that Ukrainians demanded in the 
revolution of dignity.
    If confirmed, I look forward to returning to Embassy Kyiv 
and continuing the work of my friend, Ambassador Geoff Pyatt, 
in helping Ukrainians make the dream they fought for a reality.
    Ukraine has made more progress on reforms in the last 2 
years than it did in its first 23 years of independence. And I 
am optimistic about Ukraine's reform trajectory, given recent 
and important achievements such as judicial reform.
    However, Ukraine still has much to do, including IMF 
conditionality, fighting corruption, reforming key sectors, and 
breaking the hold of the oligarchs.
    I want to thank Congress for its commitment to Ukraine 
demonstrated by approving over $1.3 billion in assistance since 
2014. This includes $600 million to help Ukraine reform its 
security sector, better secure its borders, and defend its 
sovereignty and territorial integrity.
    Ukraine has made good faith efforts to implement the Minsk 
agreements, but the Russians and the separatists continue to 
fuel the conflict. We need sustained security to further unlock 
the political aspects of Minsk. This means Russia and the 
separatists must stop their attacks. Implementation of the 
Minsk agreements is the best way to resolve the conflict in 
eastern Ukraine, and we will continue to support the efforts of 
our Normandy format partners and the Trilateral Contact Group.
    We have been very clear with Moscow that sanctions will 
continue until Russia fully implements its Minsk commitments, 
and I would like to thank you for the recent letter to the 
European Council urging sanctions rollover and we got some 
goods new on that today as well from the Europeans.
    Finally, we do not and we will never recognize Russia's 
attempted annexation of Crimea. Our Crimea-related sanctions 
will remain in place until the peninsula is returned to 
Ukraine.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you. I welcome your questions.
    [The prepared statement of Ambassador Yovanovitch follows:]


           Prepared Statement of Ambassador Masha Yovanovitch

    Chairman Corker, Ranking Member Cardin, members of this committee. 
It is a privilege and an honor to appear before you today as President 
Obama's nominee to serve as the United States Ambassador to Ukraine. If 
confirmed, I look forward to working with this committee and Congress 
to continue our strong support for the Ukrainian people, enhance our 
already deep bilateral relationship, support Ukraine's reform agenda, 
and protect its sovereignty and territorial integrity. These steps will 
be critical to advancing our shared goal of a Europe whole, free, and 
at peace.
    I'd like to introduce my mother, who is 88 years young, and has 
been a constant source of support and inspiration. I wish my father 
could have been here today also; he would have been so moved. Like so 
many, including those in the Ukrainian American community, my parents' 
lives were changed forever by Communist and Nazi regimes. They survived 
poverty, war and displacement, and finally arrived in the United 
States, with me in tow, in search of freedom, opportunity, dignity and 
accountability. The very values that Ukrainians demanded in the 2014 
Revolution of Dignity.
    If confirmed, I look forward to continuing the work of my friend 
and colleague Ambassador Geoff Pyatt in helping Ukrainians make the 
dream they fought for a reality. I bring 30 years of experience at the 
State Department and have worked throughout the region, including in 
Russia as a political officer, Ukraine as Deputy Chief of Mission, and 
Kyrgyzstan and Armenia as Ambassador. In addition, I served as 
Principal Deputy Assistant Secretary of State for European and Eurasian 
Affairs, where I covered bilateral and multilateral issues affecting 
our relations with Europe.
    Ukraine has made more important progress on reforms in the last two 
years than it did in its first 23 years of independence. And I am 
especially optimistic about Ukraine's reform trajectory this year, 
given several key achievements since the reformation of the coalition 
and government in April. Ukraine overwhelmingly approved constitutional 
amendments to strengthen judicial independence; raised energy tariffs 
to 100% of market rates ahead of the IMF's schedule; and replaced a 
Prosecutor General who had lost the trust of civil society with one who 
has committed to reforming the PGO. Many of you, no doubt, met with the 
Prime Minister and cabinet ministers who were here in Washington last 
week and received a first-hand account of the progress Ukraine is 
making. These reform achievements are all the more impressive given 
that they have come in the face of Russian aggression. The best defense 
against Russian aggression is a successful Ukraine.
    But of course, much work remains to be done. Ukraine still has to 
implement difficult changes such as: taking further steps to root out 
corruption; advancing energy sector reform; recapitalizing and 
reforming the banking system; working to improve the business climate 
by levelling the playing field; improving accountability and civilian 
control in the defense sector; reforming the PGO and justice sector; 
and breaking the hold of oligarchs over Ukrainian politics and 
business. Ukraine must also continue to adhere to IMF conditions and 
ensure that the $17.5 billion program continues.
    I want to thank Congress for its commitment and support by 
providing assistance to Ukraine. It has been critical to making real 
changes in the lives of Ukrainians and delivering on the promise of the 
Maidan. With strong bipartisan support, the United States has provided 
over $1.3 billion in assistance since 2014, including over $112 million 
in humanitarian assistance, as well as three $1 billion loan 
guarantees, the third of which we expect to disburse later this year. 
We continue to support Ukrainian civil society and independent media, 
which help Ukrainian citizens hold their government accountable to its 
reform pledges.
    Just as we stand firmly behind the Ukrainian people in their 
efforts to transform their nation, we stand with Ukraine as it seeks to 
reform its military, stop further Russian aggression, bring the 
conflict in the Donbas to a peaceful conclusion via the Minsk 
agreements, and end the occupation of Crimea.
    Thanks to Congress' support, we have been able to devote over $600 
million to helping Ukraine undertake needed security reforms, better 
monitor and secure its borders, deploy its forces more safely and 
effectively, and defend its sovereignty and territorial integrity. We 
have trained over 1,700 Ukrainian conventional forces and National 
Guard personnel and 120 Special Operations Forces (SOF). We have 
provided counter-artillery and counter-mortar radars, night and thermal 
vision devices, over 3000 secure radios, 130 Humvees, over 100 armored 
civilian SUVs, and tens of thousands of medical kits to help Ukrainian 
troops successfully resist advances and save lives.
    The conflict in the East has exacted a heavy toll on Ukraine, 
resulting in an estimated 10,000 Ukrainians killed and 2.5 million 
refugees and internally displaced persons. As President Obama has 
stated, the United States will continue to work for the full 
implementation of the Minsk agreements, until which time sanctions on 
Russia will continue. We are working with the Normandy powers of 
France, Germany, Russia, and Ukraine, as well as the OSCE, to make this 
a reality and restore peace to eastern Ukraine.
    Ukraine has lived up to many Minsk commitments already. But Russia 
and the separatists have not. Violence has spiked in the past two 
months to reach levels we have not seen since August 2015. Russia and 
the separatists must end their attacks--they continue to commit the 
majority of ceasefire violations--and withdraw banned heavy weapons, 
while providing the OSCE full, unfettered access throughout the 
conflict zone and guaranteeing monitors' safety. A sustained 
improvement in security will allow Ukraine to pass a Donbas election 
law, hold local elections in portions of eastern Ukraine, and implement 
special status and amnesty. These steps should lead to Russia's 
withdrawal from Ukraine and restoration of Ukrainian control over its 
side of the international border.
    Finally, as President Obama has stated clearly, we do not and will 
not recognize Russia's attempted annexation of Crimea. We are working 
with the Government of Ukraine as well as our partners and allies to 
highlight Russian abuses targeting Crimean Tatars and others opposed to 
Russia's illegal occupation as well as ensure that the costs to Russia 
continue, including through sanctions, until Crimea is returned to 
Ukraine.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you. I welcome any questions you may have. 
Thank you.


    The Chairman. Thank you very much. And we look forward to 
at some point in the future a report card on how our next 
witness has actually done in Ukraine. Our next panel, the 
Honorable Geoffrey Pyatt, who has distinguished himself by his 
service in Ukraine, is nominated to be Ambassador to Greece, 
and we look forward to your testimony and thank you for your 
service.

 STATEMENT OF HON. GEOFFREY R. PYATT, OF CALIFORNIA, NOMINATED 
                   TO BE AMBASSADOR TO GREECE

    Ambassador Pyatt. Thank you, Mr. Chairman. I would like to 
begin by thanking you and Ranking Member Cardin for your warm 
remarks about the career Foreign Service in your opening 
remarks, and on that I speak, I think, for all of the members 
of our service. Deeply appreciated.
    I am, of course, honored to appear before you today as 
nominee to be the next U.S. Ambassador to Greece, the 
birthplace of democracy.
    I would like to begin by acknowledging somebody who is not 
here today. That is my wife Mary who is back in Kyiv finishing 
up the school year. Some of you have met Mary over the course 
of your visits, and I think you can appreciate the key 
supporting role that she has played during a historic period in 
Ukrainian and European history.
    Mary and I have had the pleasure of visiting Greece as 
tourists, and while it is striking to visit sites like the 
Acropolis, you also get a feel for the difficult challenges 
that Greece has overcome as it tackles the most severe economic 
crisis of its post-war history.
    More recently we have witnessed Greece's struggles play out 
on the front pages, over a million migrants flowing across 
Greece's borders, difficult bailout negotiations with European 
creditors and the IMF, but I believe and I know this 
administration believes that what happens in Greece matters not 
just for Greece but for the region, for NATO, for the European 
Union, and for the United States.
    Having just secured a deal with European creditors, Greece 
can breathe a small sigh of relief that this summer will not be 
as tumultuous as the last, but the road ahead is far from easy. 
My friend and colleague, Ambassador Pearce has done great work 
to promote Greece's entrepreneurial spirit and U.S. investment, 
and if confirmed, I commit myself to continuing and supporting 
those efforts.
    We also benefit from a strong bilateral defense 
relationship with Greece. Particularly noteworthy has been our 
longstanding military presence in Souda Bay, which I should 
point out is the only place between Norfolk and Dubai where an 
aircraft carrier can up pier-side and replenish. Greece has 
also been a steady NATO ally since 1952, and in fact, a U.S. 
ship arrived just last week to contribute to the NATO 
reconnaissance, surveillance, and monitoring activity in the 
Aegean, which brings me to the topic of the migration and 
refugee crisis.
    As millions fled violence and persecution, Greece became a 
door into greater Europe for those seeking peace and a better 
future. Despite their own financial hardships, the Greek people 
have shown tremendous compassion to these migrants and 
refugees, including over 50,000 who remain in Greece. As a 
country, we have done what we can to support the Greek 
Government, including nearly $44 million in humanitarian aid 
since the start of the crisis.
    And finally, on energy, as I have seen from my time in 
Ukraine, energy diversification is critical for the future of 
Europe. Just last month, Prime Minister Tsipras inaugurated the 
Trans-Adriatic Pipeline, and a Greece-Bulgaria interconnector 
is also in the works. These projects will inject millions into 
the economy, put thousands to work, and make Europe more energy 
secure.
    Mr. Chairman, members of the committee, if confirmed, I 
will dedicate myself to ensuring we bolster the U.S.-Greek 
relationship and will represent the United States to the best 
of my ability. I welcome you to Athens to continue the vital 
congressional partnership that I have enjoyed so greatly during 
my time in Kyiv.
    And in that regard, I am especially grateful to have 
Senator Durbin here who has been one of the stalwart supporters 
of my mission. Thank you again.
    [The prepared statement of Ambassador Pyatt follows:]


                  Prepared Statement of Geoffrey Pyatt

    Thank you, Mr. Chairman and Ranking Member Cardin for the honor of 
appearing before you. I would like to begin by acknowledging someone 
who could not be here with me today--that is my wife Mary, who is back 
in Ukraine finishing up the school year as a teacher. Many of you have 
met Mary in the course of your visits to Kyiv, and can appreciate the 
key supporting role she has played during a truly historic period in 
Ukrainian and European history. I would also of course like to express 
my gratitude to President Obama and Secretary Kerry for the confidence 
they have expressed in me through this nomination.
    I am particularly honored to appear before you as the nominee to be 
the next United States Ambassador to Greece--the birthplace of 
democracy. I have had the pleasure of visiting Greece as a tourist, and 
while it's striking to visit sites such as the Acropolis, where the 
idea of representative government first came to life, one also gets a 
feel for the difficult challenges Greece has overcome along the way. 
Today, Greece continues along this path even as it tackles the most 
severe economic crisis in its post-war history, and the recent wave of 
irregular migration puts further strain on Greece's limited resources. 
But I believe, and I know this administration believes, that what 
happens in Greece matters--not just for Greece, but for the region, 
NATO, the European Union, and the United States. Greece's success will 
support a stronger, brighter future for all of us, and my goal--if 
confirmed--will be to pursue that future.
    One of the things I have learned over the past three years is that 
events sometimes unfold differently from what one expresses in a 
confirmation statement, and with that in mind I will try to keep this 
one short and to the point. As Ambassador to Ukraine, I have also 
learned to respect even more the role that this committee can play in 
the expression and implementation of American foreign policy. I am 
deeply grateful for the attention that the Senate Foreign Relations 
Committee has devoted to Ukraine over the past three years and the many 
Congressional visits that have helped shine a spotlight on our policy--
starting with Senators Murphy and McCain's historic visit in December 
2013 at the peak of the Maidan and the separate, important visits by 
Chairman Corker, Ranking Member Cardin, and Senators Johnson and 
Shaheen before, during, and after the 2014 presidential elections that 
reaffirmed Ukrainian democracy. It is no exaggeration to say that 
Ukraine would not be where it is today, and would not have been able to 
resist Russian aggression so effectively, without your consistent 
Congressional support. With that experience in mind, I assure you that 
if confirmed as Ambassador to Greece, I will continue the pattern of 
intensive engagement with the Foreign Relations Committee that has been 
so essential to my effectiveness in Kyiv.
    The success of U.S. policy in Greece hinges on the effectiveness of 
the U.S. partnership with the European Union. We have witnessed 
Greece's struggles play out on the front pages over the past year -over 
one million migrants flowing across Greece's borders and a resulting 
spotlight on border security concerns, continued economic hardship, and 
difficult bailout negotiations with European creditors and the IMF. The 
successful resolution of these issues is critical to the long-term 
stability of Europe broadly, and Greece's success in many ways is a 
linchpin to broader European prosperity. For this reason, we depend on 
the strength of our own partnership with the EU to move forward policy 
objectives that will support a stronger Greece in the long-term.
    The economy is the first thing that comes to mind when we talk 
about Greece. Having just secured a deal with its European creditors, 
Greece can breathe a small sigh of relief that this summer will not be 
as tumultuous as last summer. But the road ahead is far from easy, as 
the country continues to grapple with unemployment hovering near 25 
percent and youth unemployment twice that. Greece has undergone years 
of budget cuts and tax hikes and must meet ambitious fiscal targets in 
the months and years to come under its bailout agreement. We need to 
support Greece's efforts to promote economic growth policies and to 
attract investment, because fiscal discipline and economic reforms are 
only part of the puzzle. But there are bright spots too--Greece has a 
tremendously entrepreneurial spirit. My friend and colleague Ambassador 
Pearce and his team have done great work to promote start-ups and small 
businesses, such as this year's initiative to send nearly 30 Greek 
entrepreneurs to pitch their businesses to investors at the South by 
Southwest festival in Austin, Texas. If confirmed, I commit myself to 
supporting these efforts and seeking new ways to help stimulate our 
economic partnership.
    We also benefit from a strong bilateral defense relationship with 
Greece. Particularly noteworthy has been our long-standing military 
presence at Naval Support Activity Souda Bay on the island of Crete, 
from which we conduct around 5,000 flights and hundreds of ship visits 
annually. As the only place between Norfolk and Dubai where an aircraft 
carrier can pull up pier-side and replenish, and with Greece being the 
closest European ally to the seamline between EUCOM, CENTCOM, and 
AFRICOM, Souda Bay's strategic location has made it an important 
location for these combatant and strategic commands. Greece has been a 
steady NATO Ally since 1952, and has participated in missions in Korea, 
the Balkans, Kosovo, and Afghanistan. Through NATO we have reinforced 
our bilateral defense relationship, and in fact, a U.S. ship arrived 
just last week to contribute to the NATO reconnaissance, surveillance, 
and monitoring activity in the Aegean Sea. NATO ships--including our 
own--are currently sharing information with the Greek and Turkish Coast 
Guards, as well as the EU's border agency FRONTEX to prevent illegal 
migrant crossings from Turkey to Greece.
    This brings me to the topic of the migration and refugee crisis, 
which has absorbed so many resources in Greece. As millions have fled 
violence and persecution in Syria, Iraq, and elsewhere, Greece became a 
door into greater Europe for those seeking peace and a better future. 
Despite their own financial hardships, the Greek people have shown 
tremendous compassion. We've heard story after story about individual 
Greeks doing what they can to help people who are vulnerable--providing 
food and shelter when they needed it most.
    Over 50,000 migrants and refugees remain in Greece today. The Greek 
government is working hard to improve living conditions, more quickly 
process asylum claims, and coordinate with EU partners and Turkey to 
implement the March 18 EU-Turkey Migration deal. It hasn't been 
perfect, but Greece is doing its best alongside the EU, working with 
NGOs and international organizations. We would like to see even more 
such cooperation, particularly with UNHCR, which has the experience and 
expertise to help the Greeks. While Greece's differences with Turkey 
will not be resolved overnight, Greece has demonstrated effective side-
by-side cooperation with Turkey to manage the migration crisis in the 
Aegean, the front line of the crisis. That daily migration flows from 
Turkey to Greece have dropped from some 7000 per day in September and 
October of last year to less than 100 today is a testament to this 
cooperation. We have also done what we can to support the Greek 
government, including the State Department's contribution of nearly $44 
million in humanitarian aid since the start of the crisis. We have 
worked with our DoD colleagues to provide humanitarian assistance items 
such as beds, blankets, and sanitary items to equip refugees camps. And 
our Centers for Disease Control and Prevention are working in close 
concert with the Greek public health authorities as they seek to ensure 
the public health and that of the migrant population is effectively 
safeguarded.
    The migration crisis highlighted concerns regarding border security 
and counterterrorism, but has also given way to opportunities for 
improving cooperation and coordination on these very important issues. 
Our bilateral cooperation through agencies like DHS and the FBI is 
excellent, and we've forged strong partnerships that allow us to 
counter security threats as a team. Right now, we are working with the 
Greek government to upgrade its border screening capabilities, and if 
confirmed, I will continue these efforts to strengthen our security 
partnership.
    Let me conclude with a word on energy. Just last month, Greek Prime 
Minister Tsipras inaugurated the Trans-Adriatic Pipeline, or TAP, at a 
ceremony in northern Greece. TAP is the final link in the Southern Gas 
Corridor, a multi-stage project that will bring gas from Azerbaijan to 
other parts of Europe via Georgia, Turkey, Greece, Albania, and Italy. 
A complementary project, the GreeceBulgaria Interconnector, would help 
liberate Bulgaria from its total dependence on Russian gas. These 
projects will inject millions of dollars into the economy, put 
thousands of Greeks to work, and make Europe more energy secure. As I 
have seen from my time in Ukraine, energy diversification is critical 
for the future of Europe, and I am committed to furthering our efforts 
to support infrastructure projects such as TAP.
    Mr. Chairman and members of the committee, clearly Greece is an 
important partner and strategic ally on a range of diverse issues. If 
confirmed, I will dedicate my time in Athens to ensuring we bolster the 
Greek-U.S. relationship across the board. I will lead our U.S. 
government team and represent the United States to the best of my 
ability, and as I mentioned at the top, I would welcome you to Athens 
to continue the great Congressional partnership I have enjoyed during 
my time in Kyiv. Thank you for your time, and I look forward to 
answering your questions.


    The Chairman. Well, we look forward to you continuing 
similar types of efforts that you have been displaying in 
Ukraine in Greece. I know we have some similar issues there, 
some that are dissimilar.
    Senator Durbin is a very wise Senator. He wanted to see how 
well you propose before he introduced you. [Laughter.]
    The Chairman. And so he is now here to do that. Senator 
Durbin, thank you for being with us.

                STATEMENT OF HON. DICK DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Mr. Chairman, thank you very much, and 
Senator Cardin, Senator Menendez. And it is true. I withheld my 
introduction to see how well he did.
    The Chairman. He did very well.
    Senator Durbin. And Ambassador Pyatt did extraordinarily 
well.
    I will ask that my statement be made a part of the record 
because I know you have other witnesses prepared to testify.
    Just a few words. Geoffrey Pyatt is not a son of Illinois, 
but I would gladly claim him any day. There was a time in my 
life when I thought I one day wanted to be in the Foreign 
Service. I got diverted into another business.
    But I will say this. He is my ideal of a person in our 
diplomatic corps who can tackle the most challenging 
assignments and do them with aplomb, with integrity, and 
effectiveness. He proved it in Ukraine. Many of us have been 
there over and over. Time and again, he gave us timely 
briefings on what was happening in that country torn by 
revolution, as well as invasion by the Russians. I cannot think 
of a person who could have done it better.
    I can recall one particular instance where I asked him as a 
personal favor if he would give me a call on a Sunday afternoon 
on a speaker phone to a section of Chicago known as Ukrainian 
Village where 500 people after church on a Sunday had gathered 
for a last-minute briefing on what was happening in their 
beloved homeland of Ukraine. He did it willingly and did it 
professionally.
    Now we are sending him to a new challenge in Greece, not 
only their internal domestic challenge, but also the external 
forces which are at work with the immigration. He is the man 
for the job. I am honored to endorse his efforts to become the 
next Ambassador to Greece.
    I would ask that my statement be made part of the record 
and apologize for my tardiness.
    The Chairman. Without objection.
    [The prepared statement of Senator Durbin follows:]


        Statement for the Record from Senator Richard J. Durbin

    Mr. Chairman, thank you for this opportunity to introduce one of 
our nation's finest diplomats, Geoff Pyatt. I don't often ask for the 
opportunity to make such introductions, and Geoff isn't even from the 
great state of Illinois.
    But he is exceptional.
    You see, he served the last three years representing the United 
States during a major foreign policy crisis in Europe--one that saw a 
democratic revolution in Ukraine and then Russia break all norms of 
established international behavior by forcibly seizing sovereign 
territory of one of its neighbors.
    And he did this with distinction and aplomb.
    What also struck me about Geoff was not only his tireless 
diplomatic skill amid these crises, but that he always, and I mean 
always, had time to talk with us in the Senate about what was happening 
and how we could help. When visiting Ukraine on multiple occasions, he 
always, at all hours and on any day, had time to meet with us.
    I think only once in the last three years--and only one time--did 
Geoff have a scheduling conflict--and that was for his son's graduation 
from college.
    He clearly made the right decision.
    I think Geoff's proud State Department career is well known--almost 
thirty years serving with distinction in Asia, Europe and Latin 
America.
    What I'd like to note instead here today is what he did in recent 
years in Ukraine.
    He worked tirelessly with a fragile yet determined new Ukrainian 
government to reform its nation while keeping Russia from overrunning 
the entire nation.
    He built strong trusting relations with his Ukrainian and European 
counterparts that strengthened ties between Ukraine and Europe and that 
helped maintain EU sanctions against Russia.
    And he helped advocate for and direct significant US assistance to 
help Ukraine succeed.
    We of course have many challenges ahead in Ukraine, but I can say 
without question Ambassador Pyatt's service there made a critical 
impact in the many achievements of recent years and helped leave 
Ukraine in a stronger position to succeed.
    But let me also say something a bit more personal about what kind 
of diplomat we have here with Ambassador Pyatt.
    As some of you may know, Chicago is home to the Ukrainian Village 
neighborhood. When events were both euphoric around the Maidan and 
tense with Russia threatening the entire nation, residents of this 
community were understandably concerned.
    Just after the Russian invasion of Crimea, I hosted a town hall in 
the Ukrainian Village and Ambassador Pyatt was gracious enough to join 
by speakerphone from Kiev--on a Sunday no less. I think he thought he 
might be speaking to a small conference room of interested folks..but 
it was to hundreds of anxious attendees.
    I cannot tell you have valuable and appreciated that was by the 
Ukrainian Americans at that event who were hungry for timely and 
credible information at a time of such uncertainty and peril in 
Ukraine.
    Geoff graciously returned to Chicago last March and spoke further 
on events in Ukraine.
    I was recently in Greece where I joined Senators Shaheen, Warren, 
and Klobuchar in seeing first hand the refugee crisis on the island of 
Lesbos. The heartbreaking scenes of families coming across the perilous 
waters in cheap rubber rafts with children's lifejackets were deeply 
moving--as was the generosity and humanity shown by the Greek people 
amid their own economic challenges.
    If confirmed, the people of the United States and Greece will 
without a doubt be well served by Ambassador Pyatt. A great American 
ally such as Greece deserves a great diplomat such as Ambassador Pyatt 
and, as such, I wholeheartedly endorse his nomination and hope the 
committee will do so as well.
    Let me close by saying that at a time when government and public 
service is often cynically undermined and denigrated, Ambassador Pyatt 
reminds us just how many dedicated people are serving around the world 
advancing America's key interests and trying to improve the lives of 
others.


    The Chairman. We just thank you for taking the time to be 
here and speaking so well of someone we respect deeply.
    With that, I am going to defer. Our staff had an 
opportunity to very intensely meet with all of the nominees, 
and I had a chance to meet with many of them individually. So I 
am going to defer. I know Senator Cardin did also, but I am 
going to defer to you and Senator Menendez.
    Senator Cardin. Well, thank you, Mr. Chairman. And once 
again, we underscore the fact that the nominees that are before 
us are all experienced career diplomats that have demonstrated 
their dedication to our country and to foreign service, and we 
are very proud that they are willing to continue in difficult 
roles.
    And as you know, there are questions that are asked for the 
record, and I will be asking questions and getting your 
response to help you deal with an area that is particularly 
important to me, and that is good governance and anti-
corruption and now our committee and the Members of the Senate 
can help you in your mission to raise attention to these 
fundamental issues.
    That is going to be particularly important in Ukraine, a 
country that we have invested a great deal. Clearly, the factor 
of concern in Ukraine is Russia and their aggression and what 
they continue to do in their violations of the Minsk 
agreements, and it goes on and on and on. But Ukraine must also 
deal with its institutional issues and its commitment to fight 
corruption at every level, and that is going to be critical to 
their long-term stability. So we will be trying to help in 
every way we can.
    I want to ask all three of you a similar question. And, 
Ambassador Pyatt, it is relative to your current assignment 
more so than Greece, and that is Russia's penetration into 
Lithuania, penetration into Ukraine and its ability to try to 
influence through propaganda public opinion to cause problems 
for the stability of these countries. We have seen this in the 
Baltic countries. We have seen it in Ukraine. And I would just 
like your observations as to what our role should be in 
providing accurate information as to what is happening and 
Russia's involvement in what is happening in so many countries 
in Europe.
    Ms. Hall, if we can start with you.
    Ms. Hall. Thank you, Ranking Member Cardin, for raising 
this important issue.
    Lithuania, as its Baltic neighbors, has dealt with a degree 
of Russian disinformation and propaganda for a long time. The 
Russians never really stopped targeting the Baltics, but 
certainly the sophistication and the scale of the 
disinformation and propaganda aimed at the Baltics has 
increased exponentially since 2014, and now Russia has a slick 
and sophisticated media operation that certainly targets 
Russian speakers, but it can have an insidiously damaging 
effect to society at large.
    We are working with Lithuanians to train journalists in 
investigative reporting and fact-based reporting. And our 
embassy in Vilnius is actually overseeing a program for mid-
career journalists from all over the Baltics. We include 
Russian language speakers in those programs. Lithuania is 
running Radio Free Europe programming, as well as Radio Liberty 
programming. And the Lithuanian ministry of foreign affairs and 
ministry of defense operate strategic communications teams with 
which we coordinate.
    Finally, we are at the embassy supporting Lithuanian 
Government efforts to reach out to their ethnic communities. 
The ethnic Russian speaking community in Lithuania is about 6 
percent of the population, the Polish community about 7 
percent. And I would say in that regard in a country the size 
of Lithuania, there is nothing like the personal touch, and I 
have given speeches and reached out to Lithuanian audiences all 
over the country in Lithuanian, and if confirmed, I would make 
it a very high priority for myself and my team to reach out 
throughout the country to Lithuanians, as well as Russian 
language speakers and Polish speakers.
    Senator Cardin. Thank you.
    Ambassador Yovanovitch?
    Ambassador Yovanovitch. I think our efforts are along three 
lines. One is to make sure that we get our story out, and much 
like the work that is being done today by the embassy in 
Lithuania, I think many of those similar efforts are taking 
place in Kyiv.
    We also put a premium on identifying and analyzing and 
countering the stories that Russia sometimes puts out that are 
false, and that is an important line of effort as well.
    And finally--and in some ways this is really the most 
important thing that we can do is building capacity, whether it 
is in Ukraine or other countries that face this threat, 
building capacity within the journalistic community, within 
civil society so that they themselves can get their own good 
news out and they themselves can counter the Russian propaganda 
efforts. We have a number of programs, but in the interest of 
brevity, I will stop here.
    Senator Cardin. Ambassador Pyatt, what has been our most 
effective tool that you have found in trying to counter the 
Russian propaganda?
    Ambassador Pyatt. The truth. I would just make the point I 
think the one thing I have learned about these issues over 3 
years is that the Russian effort is really not about winning an 
argument. They have weaponized information and used information 
as part of their military campaign against Ukraine, and you can 
see that, for instance--I remember vividly in the spring of 
2014 when these GRU and FSB teams first started to move into 
Ukrainian territory in the Donbas. One of the first things they 
did was pulled down all the Ukrainian television content. So I 
think I have always said Ukraine's strongest counter to that is 
success at the reform effort that you alluded to in your 
remarks.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. If I could just add to that. We spoke briefly 
yesterday. I think every one of us has walked down the Maidan 
and witnessed what occurred there. And I think also just the 
will of the people themselves for change is the number one 
weapon against Russia.
    So, anyway, we are glad of your work there. We thank you 
for that and look forward to the same taking place in Greece.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    And thank all of you for your service to our country.
    Let me start with you, Ambassador Pyatt. I was there in 
Ukraine when the Russians were invading. I was free to call it 
an invasion, which it was. And I must say if every ambassador 
was like you, I would have the highest of regards for the State 
Department and the Foreign Service. You did an extraordinary 
job. You were honest and forthright in all of your answers, and 
you did not use the diplomatic speak that sometimes I hear. So 
I really appreciate your incredible service most recently in 
Ukraine and beyond.
    And I appreciate your opening statement as it relates to 
Greece because I think sometimes there is a view in the 
Department that is a little different. Greece has been an 
extraordinary ally throughout, one of the handful of countries 
to be with the United States in every 20th century conflict. 
And the access to Souda Bay is just essential for us. So I 
appreciate those opening statements.
    I want to ask you. We see Greece's central bank governor 
has publicly called for more debt relief and more realistic 
budget targets, essentially saying that the agreement Greece 
has made with its creditors is seriously flawed. That seems to 
be a lot closer to the position of IMF Director Lagarde and far 
from where Germany is. Lagarde and the IMF have the best view, 
I think, on this, which is that Greece needs immediate debt 
relief and more realistic budget targets.
    What role do you see--I mean, this is a European context. I 
gather that. But with such an important security and other 
relationship with Greece that we have and a NATO ally, what 
role do you see the United States playing and yourself as 
Ambassador to Greece in this regard?
    Ambassador Pyatt. Thank you, Senator Menendez, both for 
your comments about my work in Ukraine but also for the 
important question.
    I would make a first point regarding Germany. You know, I 
have learned in the past 3 years in Kyiv how extraordinarily 
important the partnership between the United States and Germany 
is to a variety of U.S. interests in Europe. I have a very 
strong German counterpart who I consult with as closely as any 
counterpart in Kyiv today. Chancellor Merkel I think deserves a 
lot of credit for the leadership that she has exercised, 
including on the important sanctions role over a decision that 
happened today.
    That said, we have a difference of perspective with Germany 
on the question of Greece's long-term financial trajectory. I 
have spent some time with our treasury experts who have been 
clear in our view that over the long term, there needs to be 
some form of official debt relief in order to put Greece on a 
sustainable growth trajectory.
    I think it is important also to recognize the very 
courageous steps that Prime Minister Tspiras has taken already 
to reform that economy. Lots of work still to be done. It is 
important that today you have--Juncker is in Athens as I 
understand. You have a disbursement of over 7 billion euros in 
additional funding from the EU. So this will be at the very top 
of my list, if confirmed, as I get to Athens. And my 
undertaking will be to work as closely as possible with the 
Greek authorities but also continue the active dialogue with 
German counterparts that I have enjoyed over 3 years in Kyiv.
    Senator Menendez. Thank you.
    Ambassador Yovanovitch, last time we had the chance to 
engage, I was at the hearing of your former nomination, and you 
did excellently well except that you were hamstrung by a State 
Department position on the Armenian genocide. So I appreciate 
the service that you had, and today will be a lot easier than 
that hearing was.
    But I do want to ask you as a follow-on to the good work 
that Ambassador Pyatt did--you know, I read the EU's High 
Representative's Mogherini signaling a broader review of policy 
later this year. She recently told the German newspaper, quote, 
EU governance should make a substantive political evaluation on 
the degree of implementation of the Minsk Agreement and how the 
way forward toward solving the conflict in Ukraine looks.
    Now, many believe that is unlikely that the Kremlin or the 
separatists will implement every aspect of Minsk II, and some 
believe the EU is warning Kyiv more than Moscow about 
implementation of Minsk.
    I am concerned that while we certainly have obligations we 
want to see Kyiv perform in both its transparency and its 
continuous work on corruption and a whole host of other issues, 
that there is also an obligation by the separatists and Russia 
in this regard. And so I am concerned that that is a message of 
weakening.
    What position will you be taking on behalf of the United 
States upon your confirmation in Kyiv?
    Ambassador Yovanovitch. Well, I absolutely agree with you, 
Senator Menendez.
    Senator Menendez. All right. We can stop the answer there. 
[Laughter.]
    Senator Menendez. I am just kidding.
    Ambassador Yovanovitch. Clearly, you are correct that 
Russia and the separatists have obligations as well. Ukraine 
does, and Ukraine has met many of its Minsk Agreement 
commitments. The Russians and the separatists have not. And I 
think the first thing that has to happen is a ceasefire, a true 
and enduring ceasefire. And we are not seeing that. We are, in 
fact, seeing a spike in military activity in the region, and 
that is of great concern.
    With regard to the Minsk agreements, we believe that this 
is the only way at this point to move forward. This is the 
agreement that is on the table that the parties have agreed to. 
And the Normandy Four countries, France, Germany, Russia, and 
Ukraine, are meeting periodically, and we are pressing forward 
with our diplomacy to support those efforts.
    Senator Menendez. I now close, Mr. Chairman. I just hope we 
do not get to the point that it is a unilateral obligation that 
the Ukrainians are expected, as we do, to live up to their 
responsibilities, but the other entities that are involved, the 
ones who created this process in the first place, have to be 
kept to those standards as well.
    And I look forward to supporting all of these nominees.
    The Chairman. I could not agree more. 35 Ukrainians were 
killed last month. The weaponry that is being utilized against 
them no doubt is Russian weaponry being utilized by Russians 
with the separatists. And I do hope that we will keep the 
balance that Senator Menendez mentioned.
    I think that in our push to hope that Ukraine will deal 
appropriately with corruption, sometimes it sounds like we are 
pushing them harder than we are the Russians, but no doubt many 
people are dying in order to keep Ukraine free and they are 
dying because of Russian support against them. And I appreciate 
very much you bringing that point up.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Congratulations to all three of you on your nominations. 
Thank you for being here today.
    I want to make three quick points about Ambassador Pyatt's 
historic tenure as our Ambassador to Kyiv. I had the honor of 
joining him three different times with Senator McCain, the 
first of which will be hard to ever forget, sitting through a 
70-minute soliloquy from then President Yanukovych on the eve 
of his ouster on the largest day of the demonstrations. I know 
you are going to serve us just as well in Greece.
    My first point is to commend the chairman on his push to 
move nominations as quickly as possible through this committee 
to floor. If we remember, Ambassador Pyatt was nominated just 
prior to the crisis beginning in Ukraine and had we not then, 
under Senator Menendez's leadership, moved your nomination 
quickly to the floor, we would have been left without a leader, 
without the head of our delegation. And I think the story would 
have played out very differently. And so at the time, it did 
not seem critical that we get somebody on the ground in Kyiv, 
but it turned out that it was very important that Senator 
Menendez moved quickly to get you in place. And I think it is 
another reminder of why our work to get ambassadors on the 
ground, even in places that do not seem mission-critical at the 
time, is important.
    Second, I just think that they are going to use your tenure 
to teach diplomatic crisis management. I think that the 
situation on the ground in Ukraine would be fundamentally 
different if it was not for the decisions that you made and, 
agreeing with Senator Menendez, your ability to communicate 
with Congress. We were able to pass, again with the leadership 
of the three men sitting next to me, emergency support from 
this Congress in part because we trusted that you were going to 
tell us the whole story and the full story. So I want to make 
those three quick points.
    And then I just want to ask you, as you head to Greece, 
about the tools at your disposal and at our disposal to help 
countries like Greece who are on the fringes, on the edge of 
the sanctions conversation to stick with us. We are grateful 
that we have rolled over sanctions once again, but until Russia 
has left Crimea and eastern Ukraine, we cannot relent. And you 
are going to be going to a country that has some misgivings 
about automatic renewal. What are the tools at our disposal to 
try to keep not just the Greeks with us on course, but others 
that may be starting to fray?
    Ambassador Pyatt. Thank you, Senator Murphy, both for your 
comments and for your strong partnership throughout my tenure.
    I would say on the question you pose, I mean, the most 
important thing for us to remember is why were these sanctions 
imposed. These sanctions were imposed first in response to the 
invasion and illegal annexation of Crimea, and following that, 
in a brutal violation of Ukraine's territorial integrity with 
the movement of Russian troops, equipment, and weapons onto 
sovereign Ukrainian territory, which has now produced more than 
10,000 casualties.
    Chancellor Merkel has been at the forefront in making the 
point that the only argument for the relaxation of those 
sanctions is the reversal of the violation of Ukrainian 
territorial integrity that occasioned the sanctions. And I 
think we simply have to keep bringing the debate back to that 
topic. It is important. And I am sure Ambassador Yovanovitch 
will talk about the obligations that Ukraine undertook as part 
of the Minsk Agreement. But the fact is the vast majority of 
steps that have been taken thus far have been on Ukraine's side 
of the ledger, and it is Russia which has not yet changed 
strategic direction and has not complied with its obligations 
under Minsk.
    And so the EU took an important decision today with a 6-
month rollover, and in the event that 6 months from now the 
situation remains as it is today, I will look forward, if 
confirmed, to making the case to my Greek hosts as to why it is 
very important for Greece to stand by the policy it has 
followed thus far of upholding the EU consensus.
    Senator Murphy. Ambassador Yovanovitch, let me just drill 
down on the line of questioning from Senator Menendez. I worry 
sometimes that we are asking the Ukrainians to make economic 
reforms in the middle of an invasion that are simply 
unrealistic, given the very fact that the Russians are 
occupying territory and attacking along the front lines in 
order to create an economic crisis that Ukraine cannot dig 
itself out from under. I do not doubt that we want to press 
them on these reforms, that we want them to get better on anti-
corruption reforms. But I sometimes think that it is patently 
ridiculous that we are asking them to do something that is 
impossible in the face of an invasion.
    So how do we pace our press for economic reforms, given the 
fact that so long as the Russians are there, they are 
essentially making it nearly impossible for them to enact many 
of the things that we want them to do?
    Ambassador Yovanovitch. Thank you for the question. It is a 
really important question. How do you balance those two issues, 
security and the overwhelming urgency of defending Ukraine's 
sovereignty and territorial integrity and then the push for 
economic reform, economic growth.
    And the bottom line is that Ukraine has to do both, and it 
also needs to work on strengthening its democratic institutions 
as well. And it is hard to do all three, but the three are 
actually I think mutually reinforcing. So if you work on 
transparency issues, that helps with the economic piece and it 
helps with regard to the military and some of the practices in 
the armed forces. It helps with regard to attracting investment 
to Ukraine. So it is mutually reinforcing. It is very 
difficult. No question about it. And as you pointed out, the 
steps Ukraine takes need to be paced, but they cannot afford 
basically not to keep on pushing forward.
    And what has amazed me, coming back to this portfolio after 
a number of years--I was DCM in the early 2000s--is how much 
progress Ukraine has actually made in the last 2 years when it 
was under threat, as you point out. And yet, they have been 
able to do things like do judicial reform, macro-stabilization, 
push out a new public procurement program, and other really 
important reform programs.
    So I am sensitive to the question that you are posing, and 
I do not have a super good answer as to exactly what is the 
road map, but I think it is important that Ukraine attack these 
issues.
    Senator Murphy. I think there are many of us in this 
Congress who believe that security comes first and worry that 
pacing out those other reforms too quickly ultimately 
undermines security. But I understand the balance.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    With that, I know a lot of attention has been paid to 
Ambassador Pyatt because he has been in a country that has been 
through such turmoil and he has risen to the occasion. As a 
matter of fact, as I listened to all the complimentary remarks, 
I think you ought to reconsider going to Greece and maybe think 
about retiring. [Laughter.]
    The Chairman. Hopefully you will not mess it up in Greece. 
[Laughter.]
    The Chairman. But I do want to thank all three of you for 
being here, and we hope that the countries you are going to do 
not generate as much interest. I know Ukraine is, so we will 
continue with you. But we thank you for your willingness to 
serve.
    We would ask you--there will be questions that will come in 
before the close of business on Thursday--if you could promptly 
answer those so we can move you through the process quickly, we 
would appreciate it.
    Thank you again for your service and for the family members 
who are with you.
    And with that, we will move to the second panel. Thank you 
very much. If the second panel would come on up. [Pause.]
    The Chairman. Thank you. We will now move to the second 
panel. First we have the Honorable Douglas Silliman to be the 
Ambassador to Iraq. Ambassador Silliman has been in a 
neighboring country that we have seen him many times in. He 
currently serves as U.S. Ambassador to Kuwait, has served with 
distinction. We appreciate his willingness to move to Iraq.
    Also on this panel is the Honorable Michael McKinley who is 
nominated to be Ambassador to Brazil. Ambassador McKinley 
currently serves as U.S. Ambassador to Afghanistan. I want to 
thank him for the impactful meeting that we had with President 
Ghani and Abdullah recently, and I really think it had a huge 
impact. And I want to thank you for your incredible service 
there.
    Mr. Lawrence Silverman is moving out of the main office to 
the field--I am sure he is thankful about that--to be 
Ambassador to Kuwait. He currently serves as the Deputy 
Assistant Secretary of State in the Bureau of Near Eastern 
Affairs at the State Department. We thank you for your service, 
sir.
    And lastly, we have Ms. Carol Perez to be Ambassador to 
Chile. Ms. Perez currently serves as Principal Deputy Assistant 
Secretary in the Bureau of Human Resources at the State 
Department. We thank you also.
    If you could give your testimony in about 3 minutes, any 
written testimony will be entered into the record, without 
objection. And why do you not just go in the order that you 
were introduced? Again, thank you for being here.
    And I am going to have to step out unfortunately. Senator 
Cardin has graciously agreed to chair the rest of the meeting, 
and I thank him for that.

STATEMENT OF HON. DOUGLAS ALAN SILLIMAN, OF TEXAS, NOMINATED TO 
             BE AMBASSADOR TO THE REPUBLIC OF IRAQ

    Ambassador Silliman. Chairman Corker, Ranking Member 
Cardin, I am honored to appear before you today as President 
Obama's nominee to be the next American Ambassador to the 
Republic of Iraq, and I am grateful to the President and the 
Secretary for the confidence that they have shown in me.
    And, Mr. Chairman, with your permission, I will submit my 
longer testimony for the record.
    I want to begin by thanking my wife Catherine and my two 
sons for having endured the sacrifices of a 30-year career in 
the Middle East. They are in Kuwait and are not able to be with 
us here today, but I know that I could not be here today if it 
was not for their love and support.
    If confirmed, Mr. Chairman, Ranking Member Cardin, I will 
continue to work to defeat Da'esh. Backed by U.S. and coalition 
airstrikes, training and equipment Iraqi forces have recaptured 
about 50 percent of the area Da'esh once controlled. We are 
pleased by the Iraqi's military progress in liberating the City 
of Fallujah.
    We are also encouraged that with U.S. support, including a 
new $20 million announced today, the Iraqi Government, the 
United Nations, and NGOs are addressing the needs of civilians 
displaced by the fighting. Prime Minister Abadi is taking 
measures to ensure that those who have committed crimes against 
fleeing civilians are brought to justice.
    If confirmed, I will have no higher priority than 
protecting the safety and security of the United States and of 
Americans in Iraq. I will work with Iraqi leaders to promote 
political reconciliation and regional integration. And I will 
encourage economic reform to develop and spread Iraq's wealth 
among all of its citizens.
    The Kurdistan regional government remains a key political, 
economic, and military partner. If confirmed, I will work to 
expand our cooperation with Erbil and strengthen our 
outstanding relationship.
    If confirmed, I will promote religious freedom, the 
protection of minority communities, and the fight against 
trafficking in persons. And while Iraq has made some progress, 
I will engage the highest levels of the government to seek 
greater attention on these issues.
    Ranking Member Cardin, as you know from your hearings and 
visits to the region, Iraq is a challenging country. If 
confirmed, I look forward to your continued support and 
encourage you and your staff to come visit us to see the 
important work of the United States in Iraq.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Ambassador Silliman follows:]


    Prepared Statement Douglas A. Silliman
    Chairman Corker, Ranking Member Cardin, members of the committee, I 
am honored to appear before you today as President Obama's nominee to 
be the next United States Ambassador to the Republic of Iraq. I am 
grateful to the President and Secretary Kerry for their confidence in 
me. If confirmed, I pledge to work closely with the members of this 
committee to advance U.S. national security interests in Iraq.
    I would like to recognize my wife Catherine and our sons for their 
steadfast support throughout my career. They are all in Kuwait and 
could not be here with me today, but I certainly would not be here were 
it not for them.
    I would also like to thank my friend and colleague Ambassador 
Stuart Jones who has very ably led our Embassy in Baghdad for the last 
two years. The progress we have made against Da'esh is in large part 
because of his leadership and hard work. I would also like to express 
my gratitude to the men and women serving the Unites States in Iraq: 
the staff of Embassy Baghdad, our Consulates in Erbil and Basrah, and 
of course, those men and women serving in uniform who are bravely 
working to help the Iraqis defeat Da'esh.
    If confirmed, I hope to support these great Americans as Ambassador 
to the Republic of Iraq.
    If confirmed, my goals will be clear, even if sometimes the tasks 
required to accomplish them will be difficult. I will continue the 
fight to defeat Da'esh. I will seek to enhance the safety and security 
of the United States and of Americans in Iraq, including the staff of 
the U.S. Mission, deployed military personnel, and private American 
citizens living and working across Iraq.
    I will seek the political reconciliation and regional integration 
needed for Iraqis to live with each other and their neighbors in peace 
and prosperity. I will encourage economic reform and development that 
can spread the benefits of Iraq's great wealth to all its population, 
and seek to reduce the corruption and mismanagement that bleeds Iraq's 
resources from the many to the few.
    I will work to further all of America's national interests in Iraq 
and the region, including continuing our strong partnership with the 
Kurdistan Regional Government; fighting Trafficking in Persons; 
promoting human rights; supporting Iraq's ethnic and religious minority 
communities and its underserved and displaced populations.
    Mr. Chairman, Ranking Member Cardin, members of the committee, I am 
not blind to the realities of Iraq, but I believe I can approach these 
tasks with the knowledge and experience built up over my 32 years in 
the Foreign Service. I have already served two years in Iraq, first as 
Embassy Baghdad's Minister Counselor for Political Affairs, then as 
Deputy Chief of Mission. I have served nine years in countries that 
border Iraq: four as Political Counselor at Embassy Amman, three as 
Deputy Chief of Mission at Embassy Ankara, and, most recently, two 
years as Ambassador to Kuwait. I have spent most of the rest of my 
career in the Middle East or South Asia, or working on the Middle East 
in Washington.
    As this committee knows well from your hearings and visits to the 
region, Iraq presents challenges. I do not believe that those 
challenges are insurmountable, but they are certainly hard. But Iraq 
also offers opportunities--on regional security, economic opportunity 
and human rights--that I hope to take advantage of as well.
    Please permit me to address each of my key goals in turn.
    If confirmed, my primary responsibility will be to do everything 
possible to protect the United States from threats emanating from Iraq. 
I will continue to support the robust security measures at Embassy 
Baghdad, Consulate General Erbil and Consulate General Basrah that 
protect our employees where they live and work. I will work to ensure 
that the best security information and advice available to me is also 
available to military commanders and force protection personnel. And I 
will seek to build the relationships within the Iraqi government to 
strengthen its commitment to protecting all Americans from harm.
    If confirmed, I will continue to help the Iraqi Government combat 
Da'esh. Under the leadership of Prime Minister Abadi, Iraq invited U.S. 
forces to lead an international coalition to support local security 
forces in the fight against Da'esh. Since the fall of 2014, with our 
help, the Iraqi Security Forces, including Iraqi Peshmerga and Popular 
Mobilization Forces, have driven Da'esh back. Backed by U.S. and 
Coalition air strikes, training, and equipment, Iraqi forces have 
recaptured approximately 50 percent of the area Da'esh had seized, 
including the Mosul Dam, Tikrit, Sinjar, Bayji, Ramadi, Hit, and most 
recently, Rutbah. These victories prove that with U.S. and Coalition 
support, Iraqi security forces can defeat Da'esh and other insurgent 
groups. The Iraqi government is grateful for our assistance and wants 
our continued engagement.
    Right now, we are supporting the Iraqis as they seek to retake 
Fallujah and begin to pressure Mosul. In Fallujah, our Intelligence, 
Surveillance, and Reconnaissance assets along with Coalition air 
strikes are supporting the Iraqi offensive, and the Iraqi military, 
with the support of the Popular Mobilization Forces, has made great 
progress. With our Coalition partners and the United Nations, we are 
helping the Iraqis as they prepare to hold and stabilize the city as 
well as care for those displaced by the conflict. We are disturbed by 
allegations of abuse by some of the forces trying to liberate Fallujah 
against civilians fleeing the fighting. We are, however, encouraged 
that Prime Minister Abadi has formed a committee to investigate these 
allegations, and the investigation has already led to reported arrests 
of alleged perpetrators.
    If confirmed, I will urge the Government of Iraq and the Kurdistan 
Regional Government to focus on executing a successful Mosul campaign 
that simultaneously respects the rights of those both fleeing and 
unable to flee the fighting. The Iraqis understand how important and 
how hard this fight will be, and that is why we will work closely with 
the Iraqis to ensure the necessary political and military plans are 
prepared just as we will assist the security forces taking part in the 
operation. Equally critical, we will partner with the Iraqi government 
to address humanitarian and stabilization challenges attendant to the 
Mosul campaign to ensure gains are sustained. We have seen what the 
Iraqi Security Forces can do with our help in Ramadi, Tikrit, and 
elsewhere. I am confident we will see the same success in Mosul.
    If confirmed, I will press for political reconciliation and 
improved Iraqi relations in the region and around the world. Security 
assistance can only take Iraq so far: reconciliation will be needed to 
heal the country. We believe that the most effective approach to 
reconciliation is to start at the local level, building confidence in 
local security forces and improving access to basic services. When 
people feel safe in their homes and can provide their families with the 
essentials, trust can develop between the people and their government. 
On security, we have emphasized the importance of involving locally-
recruited forces in operations to liberate and hold territory freed 
from Da'esh, and we have supported the efforts of the Iraqi government 
to enroll, arm, and train volunteers in Anbar and Ninewa--including 
tens of thousands of Sunnis. These forces have been critical to 
victories in Ramadi and Hit and will play a significant role in the 
Mosul campaign. We are also working with the Iraqis to reconstitute 
local police forces, so that when hostilities subside, citizens will 
have capable police forces drawn from their communities.
    For all of their troubles and difficulties, Iraqis want a real 
voice in governance and are committed to a democratic process. Power 
has transitioned peacefully between national and provincial governments 
following elections since 2003 and elections have been largely open and 
fair, both remarkable achievements in the Middle East. The political 
upheaval and protests we have seen in Baghdad over the past few months 
are in part the public manifestations of a people hungry for reform, 
improved government services, and economic growth. There are also 
spoilers in both the political arena and among the protesters. Spoilers 
who seek to further their self-interest by disrupting the political 
process and committing violent acts. We strongly support the rights of 
the people to assemble peacefully and protest, but we must also condemn 
the destructive actions of some protesters in the storming of 
Parliament on April 30 and a brief second breach of the International 
Zone on May 20. Prime Minister Abadi has shown his willingness to 
address the people's demands for change, and we support him in these 
efforts. But we see also self-interested parties undermining the 
efforts for reform.
    If confirmed, I will urge the restraint, compromise, and unity that 
are all fundamental to solving Iraq's many daunting problems. Prime 
Minister Abadi is a valuable partner and a strong ally. Yet our support 
for a strong, stable, democratic, and unified Iraq is broader than our 
relationship with any one leader and we seek a partnership with the 
lawfully-chosen government based on mutual respect and shared 
objectives. I will continue the work of my predecessor and keep open 
lines of communication with Iraqis of all political, ideological, and 
ethnic backgrounds, excluding only those with known links to terrorism.
    Looking outside Iraq's borders, further integration of Iraq with 
its neighbors in the region and the broader international community 
will yield political, economic, and security dividends. One of the 
achievements I am most proud of from my time in Kuwait--along with 
Ambassador Jones on the other side of the border--was helping the 
Iraqis and Kuwaitis expand an already strong bilateral relationship. 
Kuwait's economic and humanitarian support for Iraq have been vital, 
including $4.6 billion in delayed compensation payments and $210 
million pledged and delivered humanitarian assistance. Saudi Arabia's 
generous $500 million humanitarian contribution in 2014 and the 
reopening of its embassy in Baghdad in 2015 were important signals of 
solidarity against Da'esh. UAE and Qatar have both pledged or provided 
stabilization support and humanitarian assistance. These were welcome 
steps, but there is great need for more. The Government of Iraq has 
been clear that it seeks improved and constructive relations with all 
its neighbors. If confirmed, one of my top priorities will be to 
encourage the Government of Iraq to expand its engagement with the Gulf 
Cooperation Council, the Organization for Islamic Cooperation, and the 
broader Arab world.
    We must also acknowledge the relationship between Iraq and Iran. 
These countries share a long border, a long history, and a complex 
relationship, including significant economic ties. We must continue to 
work within this framework as the fight against Da'esh pushes forward, 
and ensure that Iran respects Iraqi sovereignty and does not enflame 
sectarian tensions.
    If confirmed, I will press economic reform and development, while 
continuing our efforts to ensure Iraq has the resources needed for its 
fight against Da'esh. The global collapse of oil prices has devastated 
Iraq's revenue, triggering an acute fiscal crisis. Corruption, a 
bloated public sector, and an over-reliance on oil revenue have 
exacerbated these problems and highlighted the deep need for Iraq to 
reform, decentralize, and diversify.
    If confirmed, I will seek to enhance our economic and commercial 
engagement with Iraq. Iraq has the fifth largest proven conventional 
oil reserves in the world and the second largest in OPEC. Helping the 
Iraqis to get these resources to market is critical, and Iraqis want 
the help of American companies. It will also be important to help Iraq 
to diversify its economy, decentralize economic decision-making and put 
in place reforms to encourage the development of a viable private 
sector. This means that decision making must devolve to localities and 
provinces. While economic reforms are important, a top priority for our 
mission in Iraq will be to strengthen our commercial ties and promote 
U.S. companies, products, and services. I will work to ensure that our 
companies are competing on an even playing field. I will work 
tirelessly to promote U.S. exports and ensure that government tenders, 
such as the recent tender for nearly 100,000 tons of rice awarded to 
U.S. growers, give our companies full and fair consideration.
    And this may not be as hard as it now appears. The Iraqi economy 
grew at 7 percent annually before the arrival of Da'esh, and Iraq can 
regain an upward trajectory with wiser management and a real effort to 
reduce corruption. Here too, we see a desire on the part of Iraqis for 
continued U.S. and international engagement to strengthen the private 
sector in order to spur economic growth for all Iraqis.
    If confirmed, I will promote the other crucial U.S. national 
interests in Iraq. It is important for me to highlight that the 
Kurdistan Regional Government remains a key and trusted political, 
economic, and military partner. Erbil, like Baghdad, also faces a 
daunting slate of economic issues. The Kurdish Parliament has not met 
since October of last year, and the Kurdistan Regional Government's 
fiscal crisis is also dire. Like Baghdad, the KRG faces economic strain 
from low oil prices as well as an unprecedented humanitarian emergency. 
To help alleviate some of these issues, the Department of Defense 
recently announced up to $480 million in stipend and logistical support 
for the Peshmerga, and we were all happy to see the central government 
in Baghdad commit to share some of its security assistance with the 
KRG. While these measures will provide immediate relief, the KRG needs 
to take more permanent reform measures. Like Baghdad, the KRG also has 
too many employees and too much corruption. Our USAID colleagues are on 
the ground, providing advisory support as the KRG undertakes structural 
economic reform and support for the private sector. If confirmed, I 
will work to expand our cooperation with Erbil and protect the 
outstanding relationship we have developed over years of close 
cooperation.
    I want to stress that while Mosul Dam remains a top concern, Iraq 
has come a long way in taking responsibility for the issue. Our goal is 
to prevent a catastrophe from taking place, but if it does occur, we 
have plans in place to evacuate our people and deal with the 
humanitarian crisis likely to be caused by the massive flooding. We 
continue to engage the international community on this issue because a 
dam breach would literally and figuratively change the landscape of 
Iraq during our fight against Da'esh.
    It will also be a priority to uphold our long-standing commitment 
to the promotion and protection of religious freedom and ethnic 
minorities. We are focused on the dire situation of all Iraqi 
communities, including Christians, Shabak, Yezidis, Kaka'i, Sabean-
Mandeans, Turkmen, Shia, Sunni, and members of other groups, who have 
suffered at the hands of Da'esh. We see the first priority in this 
effort as assisting Iraqi Security Forces, including Peshmerga, in 
defeating Da'esh. This is essential to the protection of human rights 
and religious diversity in the region. The U.S. response to Da'esh 
atrocities, however, involves more than military action. We will be 
supporting efforts to collect, document, preserve, and analyze the 
evidence of atrocities, including through forensic evidence in mass 
graves, and we will do all we can to see that the perpetrators are held 
accountable. On April 8, Secretary Kerry announced an additional $155 
million in humanitarian assistance to help vulnerable Iraqis inside 
Iraq and across the region. That brings the total to $778 million since 
FY 2014. We continue to work with the Government of Iraq to make sure 
its institutions are more representative and inclusive, and to promote 
security and freedom for religious minorities in Iraq, including areas 
liberated from Da'esh.
    Once security is established, we will continue to support Iraqi-led 
local efforts to establish the conditions that will allow for the safe 
and voluntary return of displaced citizens. Working with the U.N. 
Development Program, the United States and 18 international partners 
have funded a stabilization mechanism that emphasizes quick projects 
that help restore basic services like water and electricity, reopen 
schools and health clinics, and provide grants to businesses trying to 
reopen. Our support has helped contribute to stabilization efforts that 
have allowed nearly 700,000 displaced Iraqis--including 95 percent of 
the families from the Sunni city of Tikrit--return to their homes, and 
we are seeing the same effort underway in Ramadi. To make the 
stabilization efforts more sustainable, we have provided technical 
assistance to the effort, championed by the Prime Minister, to 
decentralize federal authority over many government services. 
Empowering local governments with responsibility over these services 
gives communities a greater stake in their governance and has the 
potential to improve service delivery. The implications of 
decentralization go far beyond liberated areas--greater local authority 
will improve governance throughout Iraq.
    Finally, I will press forward the Department's efforts to combat 
Trafficking in Persons (TIP), which has been a longstanding personal 
commitment. Iraq has taken notable steps to fight trafficking, despite 
the fact that its abilities to do so were severely hindered by extreme 
security challenges and budget constraints.
    The Government of Iraq as targeted both labor and sex traffickers. 
It sharply increased its investigation and prosecution of trafficking 
cases, resulting in 119 prosecutions in 2015 compared to 39 in 2014. 
The GOI assigned more police officers to TIP enforcement in every 
province. The government's inter-ministerial anti-TIP committee met 
throughout the year, provided anti-TIP and shelter management training, 
and lobbied to pass bylaws to improve implementation of the anti-TIP 
law. The government also provided training to military officers on 
child soldier issues. Nevertheless, there is room for improvement and, 
if confirmed, I will engage with Iraqis at the highest levels to press 
for greater attention and effort to this issue.
    Chairman Corker, Ranking Member Cardin, members of the committee, 
if confirmed, I look forward to your continued support and invite you 
to come see the good work that American civilian and military personnel 
are doing to further U.S. interests in Iraq. I thank you for the 
opportunity to testify, and look forward to answering your questions.


    Senator Cardin [presiding]. Thank you for your testimony.
    Ambassador Mckinley?

    STATEMENT OF HON. PETER MICHAEL McKINLEY, OF VIRGINIA, 
NOMINATED TO BE AMBASSADOR TO THE FEDERATIVE REPUBLIC OF BRAZIL

    Ambassador McKinley. Mr. Chairman, Ranking Member Cardin, 
and members of the committee, it is my distinct honor to appear 
before you today as President Obama's nominee to serve as the 
next United States Ambassador to Brazil. I deeply appreciate 
the confidence President Obama and Secretary Kerry have shown 
in nominating me for consideration by the Senate.
    I am also profoundly thankful for the support across my 
career of my wife Fatima and our three children, Claire, Peter, 
and Sarah who could not be with us today.
    Having spent part of my youth in Brazil and having served 
as U.S. Ambassador to Peru and Colombia, I am well aware of 
Brazil's importance to the United States and to the region. If 
I am confirmed, I pledge to work with you and your Senate 
colleagues to continue developing our vibrant relationship with 
Brazil.
    Brazil and the United States have a rich history of 
collaboration. Our engagement is firmly rooted in shared 
democratic values. We are collaborating to facilitate trade, 
encourage investment, create jobs. We are deepening our defense 
and security cooperation. We are standing together in defense 
of human rights.
    If I am confirmed, I will do my utmost to continue 
advancing on all these fronts. Job number one will remain to 
ensure the continued safety and security of U.S. citizens in 
Brazil. Our mission to Brazil is currently working to support 
the Brazilian Government's efforts to stage a safe and 
successful 2016 Summer Olympics and Paralympics, which more 
than 100,000 Americans are expected to attend.
    Another key focus would be to continue developing our 
commercial ties with Brazil. Annual two-way trade and 
investment between our countries reached $100 billion in recent 
years, but we can increase it even more. And if confirmed, I 
will dedicate my efforts to advancing our leaders' vision of 
doubling trade within 10 years.
    If confirmed, I would also seek opportunities for our two 
countries to continue to partner in exchanging information 
about our experiences promoting transparency and accountability 
and confidence in the rule of law.
    Finally, if confirmed, I would work to secure support for 
our regional, global, and multilateral priorities. Whether we 
are seeking to promote respect for democracy in the hemisphere, 
defend freedom of expression, build global peacekeeping 
capacity, combat global health threats like zika, or confront 
climate change, we can accomplish more when we work together 
with Brazil than we can on our own.
    Ranking Member, thank you once again for your consideration 
of my nomination. And it is a pleasure to have the opportunity 
to have spoken earlier today, and I remain open to and welcome 
any questions you may have. Thank you.
    [The prepared statement of Ambassador McKinley follows:]


               Prepared Statement of P. Michael McKinley

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
it is my distinct honor to appear before you today as President Obama's 
nominee to serve as the next United States Ambassador to Brazil. I 
deeply appreciate the confidence President Obama and Secretary Kerry 
have shown in me by sending my name to the Senate for consideration. I 
am also profoundly thankful for the support of my family, particularly 
my wife Fatima and my children Claire, Peter, and Sarah.
    Having spent part of my youth in Brazil, and having had the good 
fortune to serve as U.S. Ambassador first to Peru and then to Colombia, 
I am well aware of Brazil's importance to the United States and to the 
region. If I am confirmed, I pledge to work with you and your Senate 
colleagues to continue developing our vibrant relationship with Brazil.
    Brazil and the United States have a rich history of collaboration. 
The United States was the first nation to recognize Brazil's 
independence in 1822, and our troops fought side-by-side as part of the 
Allied effort during the Second World War.
    Today, the United States and Brazil are pursuing a comprehensive 
agenda with a breadth and depth that befits the size of our countries 
and the diversity of our peoples.
    Our engagement is firmly rooted in our shared democratic values and 
determination to promote peace and prosperity for all our citizens. We 
are collaborating to facilitate trade, encourage investment, and create 
jobs. We are deepening our defense and security cooperation to promote 
peace and stability in the region and across the globe. We are standing 
together in defense of human rights. Our citizens are traveling between 
our two countries in impressive numbers, and our extensive people-to-
people contacts are producing advancements in science, technology, and 
innovation.
    If I am confirmed, I will do my utmost to continue advancing on all 
these fronts. Job number one would be to ensure the continued safety 
and security of U.S. citizens in Brazil. Our Mission to Brazil has 
established an excellent foundation by working to support the Brazilian 
government's efforts to stage a safe and successful 2016 Summer 
Olympics and Paralympics, which more than 100,000 Americans are 
expected to attend. If I am confirmed, I will build upon this 
foundation so that U.S. citizens who choose to travel, work, and live 
in Brazil in the future may do so safely and securely.
    Another key focus of mine would be to continue developing our 
commercial ties with Brazil. Annual two-way trade in goods and services 
between our countries is already considerable, having reached $100 
billion in recent years, but we can increase it even more. If 
confirmed, I will dedicate my efforts to advancing our leaders' vision 
of doubling trade within ten years. The United States is already the 
number one source for foreign direct investment (FDI) in Brazil, with 
over $70 billion in FDI stock, and Brazilian direct investment in the 
United States already supports over 70,000 jobs in the United States, 
but again, we can do even more.If confirmed, I will work with Brazil to 
lower trade barriers and spur additional growth in our trade and 
investment relationship.
    If confirmed, I will also support Brazil's ongoing efforts to 
promote transparency and confidence in the rule of law. As Secretary 
Kerry has made clear, rooting out corruption, reducing impunity, and 
promoting good governance need to be among our top priorities in the 
hemisphere, and Brazil shares that view. Strong, transparent, and 
independent Brazilian institutions benefit us all. For this reason, I 
would seek opportunities for our two countries to continue to partner 
in by exchanging information about our experiences promoting 
transparency and accountability.
    In addition, if confirmed, I would work to secure Brazil's support 
for our regional, global, and multilateral priorities. Whether we are 
seeking to promote respect for democracy in the hemisphere, defend 
freedom of expression, build global peacekeeping capacity, combat 
global health threats like Zika, or confront climate change, we can 
accomplish more when we work together with Brazil than we can on our 
own.
    In conclusion, and if confirmed, I will faithfully execute my 
duties as U.S. Ambassador to Brazil and dedicate all my energies to 
deepening the robust partnership between the two largest democracies 
and economies in the Americas.
    Mr. Chairman, members of the committee, thank you once for your 
consideration of my nomination. It is a pleasure to have the 
opportunity to speak with you today. I welcome your questions.


    Senator Cardin. Thank you for your testimony.
    Mr. Silverman?

   STATEMENT OF LAWRENCE ROBERT SILVERMAN, OF MASSACHUSETTS, 
       NOMINATED TO BE AMBASSADOR TO THE STATE OF KUWAIT

    Mr. Silverman. Ranking Member Cardin, I am honored to 
appear before you today and gratified by the trust that 
President Obama and Secretary Kerry have shown by nominating me 
to serve as U.S. Ambassador to the State of Kuwait.
    I would like to thank my family for their support. My wife 
Vicki, a former Foreign Service officer herself, my daughter 
Lina and my son David are here with me today.
    If confirmed, I will work closely with this committee and 
others in Congress to enhance a close, mutually beneficial 
bilateral relationship that helps us cope with regional 
conflicts, combat terrorism, promote commerce, and human 
trafficking, on which we are making some progress in Kuwait. 
And I would have no higher priority than protecting the safety 
and security of all Americans in Kuwait.
    In my office, I keep a reminder of Saddam Hussein's 
occupation of Kuwait over 25 years ago, a license plate he 
issued to pretend that Kuwait was a province of Iraq. It is 
also a reminder to me of our soldiers' bravery in ending that 
occupation.
    Today, Kuwait is a key member of our counter-Da'esh 
coalition. It hosts the headquarters of the combined joint task 
force and is a world leader in aid to the Syrian refugees. 
Kuwait has also provided invaluable help to stabilize Iraq 
economically and is hosting the Yemen negotiations.
    Da'esh's June 2015 bombing of the Imam Sadiq Mosque in 
Kuwait City increased Kuwaiti resolve to combat terrorism and 
stop terrorist financing. We believe more can be done, and we 
are helping build Kuwait's capacity in this regard.
    Kuwaitis are major investors in the United States economy, 
creating jobs for Americans. There are opportunities for 
American business and technical assistance in oil, 
petrochemical, and renewable energy technology, and Kuwait's 
investment in power generation, health care, and other areas 
present enormous opportunities for American business.
    In the region, Kuwait stands out for its relatively open 
political environment. There is a relatively free press and the 
elected parliament is independent. But there is room for 
improvement.
    Five generations of Kuwaitis have studied in the United 
States. If confirmed, I will prioritize our engagement with 
these generations.
    Ranking Member Cardin, I believe my experience working on 
regional conflicts and counterterrorism and promoting commerce 
and American values would help me advance U.S. interests in 
Kuwait. If confirmed, I would look forward to welcoming you in 
Kuwait to enhance our valuable relationship.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Silverman follows:]


              Prepared Statement of Lawrence R. Silverman

    Mr. Chairman, Ranking Member Cardin, members of the committee, I am 
honored to appear before you, and gratified by the trust President 
Obama and Secretary Kerry have shown by nominating me to serve as U.S. 
ambassador to the State of Kuwait. If you will permit me, I would also 
like to thank my family for their support throughout my career. My wife 
Vicki, a former Foreign Service Officer herself, my daughter, Lina, and 
my son, David, are here with me today.
    I would also like to acknowledge the exemplary service of my 
colleague, Doug Silliman, as the U.S. ambassador to Kuwait. Some of our 
best and brightest in the Foreign Service have served as Ambassador to 
Kuwait. I have learned from them and hope to build upon the strong 
U.S.-Kuwait bonds they have forged.
    If confirmed, I will work closely with this committee and others in 
the Congress to sustain and enhance our close, productive and mutually 
beneficial relationship with Kuwait. For the past 25 years, Kuwait has 
prospered under the security and stability afforded by our 
relationship, and the United States has been able to work closely with 
Kuwait and other Gulf Cooperation Council partners in addressing 
threats to our interests because of that same relationship. Today, our 
partnership serves as a cornerstone of U.S. national security interests 
in the region and helps us find solutions to destabilizing regional 
conflicts, combat extremism and terrorism, promote commerce, advance 
cooperation on global issues such as eliminating human trafficking--on 
which we are making some progress in Kuwait. Moreover, we are working 
to further strengthen the investment and education ties between our 
countries.
    Mr. Chairman, if confirmed, I will have no higher priority than 
protecting the safety and security of all Americans in Kuwait--those in 
our Mission, deployed military personnel and the large number of 
private Americans.
    From the beginning of the campaign to defeat Da'esh, Kuwait has 
been a key member of the coalition we have led. It has provided 
strategic access and logistical support to coalition forces deployed in 
support of Operation Inherent Resolve, and is a member of the 
Coalition's Small Group, in recognition of its significant role across 
several lines of effort in this campaign. Indeed, Kuwait has been a 
leader amongst the GCC countries in providing humanitarian assistance 
to the millions of individuals displaced by conflicts across the 
region, and we look forward to Kuwait continuing this vital support.
    Almost exactly one year ago, Kuwait was a direct victim of Da'esh's 
terrorism. The June 2015 bombing of the Imam Sadiq Mosque resulted in 
27 deaths and 227 injured. None of us can reverse what happened that 
day or in other terrorist acts and bring back the lives lost, but we 
can redouble our efforts to prevent further attacks. Kuwait has drawn 
exactly that lesson from the tragedy at the mosque, increasing its 
resolve to combat terrorism, including steps to stop money laundering 
and terrorist financing. With our help, it is building its capacity for 
such efforts and has successfully prosecuted several Kuwaiti nationals 
and expatriate residents on terrorist financing charges. We look 
forward to further cooperation to stop terrorist financing, especially 
as there is more than we believe Kuwait can do in this regard.
    Since its liberation by a U.S.-led coalition in 1991, Kuwait has 
been a uniquely close defense partner, generously hosting a major U.S. 
military presence, including the regional headquarters of U.S. Army 
Central (ARCENT) and the headquarters of the Combined Joint Task Force 
for operations in Iraq and Syria. Kuwait is committed to advancing 
cooperative defense efforts. If confirmed, I promise to lead my team in 
doing all we can not only to maintain this unique and strategically 
important defense relationship, but also to help it further evolve so 
as to meet present day challenges. I will also do all I can to support 
our men and women in uniform serving there.
    I want to take this opportunity to pay tribute to the sacrifice of 
U.S. soldiers who helped liberate Kuwait in Operation Desert Storm in 
1991. I arrived at my first posting in the Foreign Service, Amman, 
Jordan, one week after Saddam Hussein invaded and occupied Kuwait, and 
met people fleeing that invasion near the Jordan-Iraq border. In my 
office, I keep on the wall a reminder of that occupation--a license 
plate the Saddam regime issued to pretend that Kuwait was a province of 
Iraq--and of the bravery of our soldiers in ending that occupation. 
While U.S.-Kuwait bonds were forged in war now over a quarter century 
ago, we are working every day to forge further bonds in peacetime. Even 
more significantly, under the leadership of Amir Sabah Al-Ahmad Al-
Jaber Al-Sabah Kuwait has prioritized improved ties with the Iraqi 
people, supporting their efforts to defeat Daesh. Kuwait has provided 
practical help to stabilize Iraq, previously postponing billions of 
required reparations payments by Iraq for the occupation of Kuwait and 
, pledging an additional $200 million in assistance to help Iraqis 
internally displaced by violence in their own country. We welcome this 
support, which reflects the important strategic recognition that the 
security of Kuwait and our GCC partners is linked, in part, to Iraq's 
success in defeating Daesh.
    Our relationship with Kuwait is much broader than security, and so 
are the mutual benefits. This will be reflected in the inaugural U.S.-
Kuwait Strategic Dialogue, which we look forward to hosting in July. 
Kuwaitis are major investors in every sector of the American economy, 
from real estate to IPOs, and we want to see our economic ties grow. 
Separately, Kuwait has committed to participate in a a new ministerial-
level economic dialogue that the President and GCC leaders announced at 
the U.S.-GCC Summit in April. It will focus on U steps Kuwait and other 
GCC partners can take to diversify their economies, increase economic 
cooperation, and also support reforms that could make available 
additional resources for Kuwait to help meet the economic and social 
aspirations of their young people and all of their citizens.
    And regionally, Kuwait has been a staunch supporter of our mutual 
interests. It has been at the forefront of supporting Iraq and its 
government, and of welcoming the Joint Comprehensive Plan of Action 
with Iran, while remaining concerned about Iran's activities 
destabilizing the region.
    Today, Kuwait is hosting the UN-mediated Yemen negotiations. The 
Amir has personally urged the parties to reach a peaceful solution to 
the conflict. The Kuwaitis have also been a world leader in 
humanitarian assistance for the Syrian crisis, pledging $1.4 billion 
through the United Nations, hosting three pledging conferences, and co-
hosting a fourth this past February. As Secretary Kerry has said, "We 
appreciate the strong partnership in trying to deal with the troubles 
of the region."
    In the all-important energy field, Kuwait is the world's eighth 
largest oil producer, the fourth largest in OPEC. Our Mission in Kuwait 
is promoting U.S. technical assistance to the oil and petrochemical 
industry. There are commercial opportunities for American renewable 
energy technology leaders, as Kuwait seeks to generate 15 percent of 
electricity production from renewable energy by 2030.
    Commercial ties between our countries expanded by over 42 percent 
between 2009 and 2015--to $7.5 billion. U.S. exports to Kuwait grew by 
29 percent, making Kuwait our fifth largest export market in the Middle 
East-North Africa region. Kuwait's multi-billion dollar investment in 
major power generation, transportation, oil and gas, and health care 
infrastructure projects presents American contracting firms and vendors 
with enormous business opportunities. As one example, our Embassy in 
Kuwait just hosted the largest U.S. trade delegation ever to Kuwait, 
focused on health care.
    Within the region, Kuwait stands out for its relatively open 
political environment, vibrant civil society, and tradition of 
constitutional participatory governance. There is a relatively free 
press, and the parliament is freely-elected and independent. Women are 
represented in the Cabinet; their participation in the public sector 
reached 54 percent in 2015. There is, however, room for improvement, 
and we will continue to encourage democratic, economic and social 
development.
    The U.S.-Kuwaiti relationship is between peoples as well as 
governments. We want to continue investing in those ties. Five 
generations of Kuwaitis have studied in the U.S., and the number of 
those studying here has grown to 9,000. With a quarter of the 
population under the age of 25, our educational opportunities are a 
vital part of sharing American principles. If confirmed, I will 
prioritize our engagement with this new generation to ensure that our 
bilateral ties continue to remain strong into the future.
    For me, if confirmed, this assignment would represent coming full 
circle since my first tour in Jordan, where I saw the effects of the 
occupation of Kuwait. I believe my experience working on regional 
conflicts and counter-terrorism, and the promotion of commercial 
relations of American values, would help me to effectively protect and 
advance U.S. interests as Chief of Mission in Kuwait. I have made a 
concerted effort to offer advice to and encourage the development of 
the skills of those with whom I have had the privilege of serving. I 
have also been fortunate to have mentors who emphasized that each 
Mission--including all the agencies represented--must function as a 
team for us to succeed in advancing U.S. interests.
    Chairman Corker, Ranking Member Cardin, members of the committee, 
if confirmed I look forward to the opportunity to welcome you and your 
staff in Kuwait to continue building our important relationship. Thank 
you very much again for this opportunity to appear before you. I look 
forward to responding to your questions.


    Senator Cardin. Thank you for your testimony.
    Ms. Perez?

   STATEMENT OF CAROL Z. PEREZ, OF VIRGINIA, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF CHILE

    Ms. Perez. Thank you, Ranking Member Cardin. It is an honor 
and a privilege to appear today to seek your confirmation as 
Ambassador of the United States to the Republic of Chile.
    I am humbled by the trust and confidence President Obama 
and Secretary Kerry have shown in putting forward my 
nomination.
    I would like to take a moment to recognize the members of 
my family: my mom and dad, Irene and John Zelis, who are at 
home in Chicago; and my husband Al; son Michael; daughter 
Caroline and her husband Jacob; and my daughter Marisa, who are 
here with me today. They stood by my side as I proudly 
represented the United States overseas and in Washington.
    I would be proud to lead our U.S. mission in Santiago, 
which has representatives from more than a dozen Federal 
agencies and terrific locally employed staff, many of whom are 
U.S. citizens.
    Chile is one of our closest hemispheric allies. Shared 
values and mutual interests anchor our bilateral and regional 
cooperation in almost every sector. It is a nation that 
supports free markets, human rights, rule of law, and respect 
for the environment. It is a contributor to global peacekeeping 
missions and supports shared priorities in security and 
military cooperation.
    Our bilateral trade has quadrupled to almost $28 billion 
per year since our Free Trade Agreement went into effect in 
2004. Supporting U.S. businesses in Chile and Chilean 
businesses investing in the United States will increase 
economic opportunity and prosperity for both countries.
    Our cooperation in the sciences and on the environment is 
second to none. U.S. and Chilean scientists collaborate to 
uncover the mysteries of outer space, conserve our oceans, and 
advance scientific research in seismology and clean energy.
    Our people-to-people relationships are robust and wide-
ranging. 50,000 Americans live in Chile, and in 2015, a record 
220,000 Americans visited there.
    Our shared focus on education, entrepreneurship, 
opportunities for women and children, and collaborative 
research projects make the United States and Chile natural 
allies, able to take on global challenges together.
    Ranking Member Cardin, if confirmed, I will work with you, 
your colleagues, and all U.S. stakeholders to advance the 
interests of the United States and to deepen the bonds between 
our two countries. I would work every day to ensure the safety 
and security of our embassy staff and all American citizens. 
This will always be my number one priority.
    Thank you, and I would be pleased to answer your questions.
    [The prepared statement of Ms. Perez follows:]


                   Prepared Statement of Carol Perez

    Thank you, Mr. Chairman, Ranking Member Cardin, and distinguished 
members of the committee. It is an honor and a privilege to appear 
today to seek your confirmation as the next Ambassador of the United 
States to the Republic of Chile. I am humbled by the trust and 
confidence President Obama and Secretary Kerry have shown in putting 
forward my nomination for this position.
    I would like to take a moment to recognize the members of my 
family--my mom and dad, Irene and John Zelis, who are at home in 
Chicago, and my husband Al, my son Michael, daughter Caroline and her 
husband Jacob, and my daughter Marisa, who are here with me today. They 
stood by my side as I proudly represented the United States overseas 
and in Washington.
    For over 28 years, I have had the privilege to advance U.S. 
interests and values by leading interagency colleagues committed to 
serving our country. I advocated on behalf of U.S. businesses 
interested in entering Europe's energy markets, led efforts to counter 
violent extremism, and supported business, cultural and educational 
exchanges during my tenure as Consul General in Milan and in Barcelona.
    I worked to advance the rule of law and combat corruption in Haiti, 
Ukraine and the South China Sea during my tenure as Principal Deputy 
Assistant Secretary for the Bureau of International Narcotics and Law 
Enforcement Affairs. In my current position as Principal Deputy 
Assistant Secretary for Human Resources, I have led efforts to ensure 
our diverse 73,000 plus workforce is prepared to meet global challenges 
and advance U.S. foreign policy interests.
    I am prepared to take the next step and serve as Ambassador--and 
would be very proud to lead our U.S. Mission in Santiago, which has 
representatives from more than a dozen federal agencies, and terrific 
locally employed staff, many of whom are U.S. citizens.
    Chile is one of our closest hemispheric allies. Shared values and 
mutual interests anchor our bilateral and regional cooperation in 
almost every sector. Chile stands as a testament to the 
transformational possibilities of democratic governance and inclusive 
economic policies. It is a nation that supports free markets, human 
rights, rule of law and respect for the environment. It is a 
contributor to global peacekeeping missions and supports shared 
priorities in security and military cooperation.
    Chile is a valued trading partner. Our bilateral trade has 
quadrupled to almost $28 billion per year since our Free Trade 
Agreement went into effect. Supporting U.S. businesses in Chile and 
Chilean businesses investing in the United States will increase 
economic opportunity and prosperity for both countries. This economic 
cooperation is a win-win.
    Our cooperation in the sciences and on the environment is second to 
none. Indeed, U.S. and Chilean scientists are collaborating to uncover 
the mysteries of outer-space, conserve our oceans, and advance 
scientific research in seismology, and clean energy.
    Our people to people relationships are robust and wide-ranging. 
50,000 Americans live in Chile, and in 2015, a record 220,000 Americans 
visited there. The number of Chileans studying in the United States has 
grown by 40 percent in the last five years to over 2,500. And Chile has 
one of the largest Fulbright programs in the Hemisphere.
    Our shared focus on education, entrepreneurship, opportunities for 
women and girls, and collaborative research projects makes the United 
States and Chile natural allies able to take on global challenges 
together
    Mr. Chairman, if confirmed, I will work with you, your colleagues, 
and all U.S. stakeholders to advance the interests of the United States 
and to deepen the bonds between our two countries. I would work every 
day to ensure the safety and security of our embassy staff and all 
American citizens. This will always be my number one priority.
    Thank you and I would be pleased to answer your questions.


    Senator Cardin. Well, once again, we do thank all four of 
you for being here today and your willingness to continue in 
public service. As I said earlier, we also thank your families.
    As I mentioned a little bit earlier, I will be asking 
questions for the record in regards to human rights and your 
commitment to keep this committee informed on the challenges 
that you face in each of your countries and where we could be 
helpful in advancing international human rights values.
    Mr. Silverman, I would like to get your input here. Kuwait 
is a very important strategic country for the United States, 
and at times, the State Department can put the strategic 
importance of the relationship ahead of advancement on human 
rights. Kuwait has been designated by the State Department 
Trafficking in Persons report for 2015 tier 3, the worst level, 
for the eighth year in a row. They passed a law, but there has 
been no demonstrated significant effort to prosecute or convict 
trafficking offenders.
    So can you just assure me that this will be a priority of 
your mission--trafficking in persons is modern day slavery. We 
have international commitments on this. Kuwait must do better--
that you will use your office to make sure that the host 
country is aware of these concerns and our willingness to work 
with them to improve their record?
    Mr. Silverman. Thank you very much, Senator.
    I, indeed, have made this a priority throughout my career 
in the others countries that I served in trying to combat 
trafficking in persons, and it will be a top priority for me in 
Kuwait.
    I will say, Ranking Member, that over the last year, we 
have maybe belatedly seen progress in the area, including 
prosecutions. So now we have a number of prosecutions just 
within the last year. We set ourselves roughly 11 goals, areas 
where we thought Kuwait needed to improve between last year and 
this year, and we think they have improved in nine of those 
areas. But prosecutions are extremely important. They have now 
begun, and we will certainly encourage them to continue because 
they send an enormously important signal beyond taking those 
people out of commission as traffickers, running slavery rings, 
the message that it sends that this should not be allowed. And 
if I am confirmed, I will certainly make this a top priority, 
my constant and the mission's constant engagement with the 
Kuwaiti authorities.
    Senator Cardin. I thank you for that. It is just important 
that we underscore this. I have done that on my visits to 
different countries, and I know that our missions are targeted 
with the assessments, their recommendations, but it is helpful 
the more engagement you have with Kuwait on this issue.
    Mr. Silliman, one of our challenges in Iraq has been 
establishing an effective unitary federal state. It is 
fundamental to our long-term success. And we have conflicting 
problems with whether we provide direct funds to the Kurds, 
whether we work through a central government, the protection of 
the Sunni areas and the involvement of the Shiite militia. How 
do you see unfolding the U.S. objective of establishing--not 
just the U.S. objective--I hope it is the Iraqi objective--of a 
functioning federal state that can protect all of the ethnic 
communities?
    Ambassador Silliman. Senator Cardin, thank you very much.
    It is a very important issue that Prime Minister Abadi 
himself has addressed when he took office by seeking to find a 
functional federalism in the Iraqi Government, which is to say 
an effective central government that is able to carry out the 
functions of a central government, but decentralization of a 
lot of decision-making to provincial authorities, governors and 
provincial councils, to deal with more of the day-to-day issues 
that are more easily dealt with closer to the people that the 
government serves.
    So I think, Senator, our goal is to do both of these things 
at the same time, to increase the efficiency of the government 
in Baghdad for the things that it must do, distributing oil 
revenue, figuring out how to defend the country, but continuing 
Prime Minister Abadi's desire to decentralize decision-making 
for a number of ministries and giving the authority directly to 
the people elected to serve the people in their own provinces.
    Senator Cardin. I think that is the right blueprint. It is 
going to take a lot of attention, and there are going to be a 
lot of bumps along the way. So we have invested a great deal in 
Iraq, and clearly we have seen some military success on 
reclaiming territory. But we know if we do not have the ability 
to hold on through good governance these areas, we are just 
going to see a repeat of what has happened in the past. So it 
has got to be a focus of our priority in the mission. I thank 
you for your answer on that.
    Ms. Perez, Chile, of course, is a partner of the United 
States. We have a free trade agreement, and yet they are on the 
watch list on trade issues. Their intellectual property 
protection has been unacceptable to us. How do you see your 
role in dealing with the concerns that we have had with Chile 
in the enforcement of our free trade agreements?
    Ms. Perez. Thank you, Senator Cardin.
    I do agree that our trade relationship with Chile has been 
very strong. As I mentioned, it has quadrupled since 2004, and 
it is almost $28 billion a year now.
    I believe we have an opportunity. Chile is a TPP country, 
and all the TPP countries do understand that they need to make 
the agreement commitments a reality before this will go into 
effect. And so I think that using this will allow us to move 
forward on the regulatory changes that need to take place to 
protect IPR, both under the FTA and under TPP. And if 
confirmed, I look forward to working with highest levels of the 
Chilean Government to have political will to make sure that 
those changes do move forward.
    Senator Cardin. Well, I would ask you to keep us informed 
on that issue. Of course, the Trans-Pacific Partnership is 
under consideration. It is not expected to come up for at least 
a few months. And I agree with you. We are looking at a country 
like Chile that we have an agreement with as to what steps they 
are taking in order to protect intellectual property, other 
issues involved. But in Chile's case, that seems to be one of 
the dominant issues. So we appreciate you reporting back to us 
as to how that is progressing in your conversations.
    Ms. Perez. Absolutely, Senator.
    Senator Cardin. Ambassador McKinley, you and I just talked 
earlier today, but I want to just underscore a point that we 
talked about that I think is important on the record. And that 
is, we know the problems in Brazil today. They are well 
understood. It is a democratic country using its institutions 
dealing with an impeachment of its leader, with a temporary or 
acting president at the present time. Our relationship with 
Brazil has gotten stronger, I think we all would agree, in the 
last year or 2.
    So how do you see your role, working with the realities in 
Brazil today, an economy that has been challenged and a 
political system that is dealing with a serious corruption 
issue? How do we use the current circumstances and continue to 
be able to build a stronger tie with Brazil?
    Ambassador McKinley. Well, the crisis of the past 2 years 
has actually required us to respond to a working relationship 
with Brazil on a host of levels because we do historically have 
extremely close ties working on economic issues, security 
issues, on advancement of human rights concerns. And the 
foundation for what we are dealing with now was set last June 
when President Rousseff and President Obama met here in 
Washington and agreed on a host of bilateral dialogues, which 
are continuing with the interim administration.
    These dialogues provide an extraordinarily strong 
foundation to deal with our trade concerns, to deal with our 
concerns about international telecommunications, Internet 
governance, energy security, climate cooperation, law 
enforcement cooperation, countering terrorism, and dealing with 
a variety of people-to-people exchanges that are extremely 
important to both nations.
    So regardless of the current political situation, Brazil is 
facing a difficult moment. It is a mature democracy. It is the 
second largest economy in the hemisphere, one of the 10 largest 
in the world. And we are confident that the country has both 
the maturity and the strength to come through the current 
crisis and for us to continue developing a very firm 
relationship between us.
    Senator Cardin. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. And good to have these 
witnesses here. Congratulations on your nominations. I look 
forward to supporting these nominations.
    Maybe I will just kind of start with Ambassador Silliman. 
You were a very gracious host to us when we were in Kuwait last 
year, arriving just within a few hours after the bombing of the 
Shia mosque in Kuwait. And one of the things that was so 
impressive to us--the CODEL that I was with--was how the royal 
family decided, look, the right thing to do is to open up the 
largest Sunni mosque in Kuwait and invite the family members of 
those who lost their lives into a Sunni mosque and to have the 
community come and pay their respects to them. And that was a 
very powerful thing, and it was good that we were able to go 
and to be part of that.
    And now you are going to move into this new country that 
has its own sectarian challenges. Senator Cardin asked you 
about this. I am curious about the pace of reforms in the 
sectarian issues and divides within Iraq also. My surmise has 
been that some of the battlefield success against ISIL can have 
a positive and energizing effect in terms of people feeling 
good about the government. But I would just like to ask you 
your perception of the degree to which the Abadi government is 
reaching out to create an Iraq that is more inclusive of all. 
That has been such a huge problem under the previous prime 
minister. I am curious about your thoughts now.
    Ambassador Silliman. Well, Senator Kaine, thank you for the 
question.
    I think you are exactly right. It has been clear now to 
Iraqis that they are much more effective in fighting Da'esh 
together than they are separately, and it has helped the 
development of a much more tight military structure.
    However, we also believe that it is going to be very 
important to engage in what we call bottom-up reconciliation, 
which is essentially forming local security forces to help the 
military take territory back from Da'esh, compose local police 
forces to hold the territory after Da'esh, reinsertion of 
elected local governments and insertion of some money to get 
the power going, the water going, schools open, and hospitals 
working to build again the confidence of local populations in 
their local governments and in the ability of Baghdad to manage 
the funds.
    Key to this is going to be, as I mentioned to Senator 
Cardin, decentralization of authority from Baghdad to the 
provinces. Prime Minister Abadi thankfully has done this and 
has already pushed three of seven ministries that have been 
asked to decentralize out to the provinces. We think this is a 
very good sign that will help functional federalism and 
integration of the various sects in Baghdad, in Iraq in a 
positive way in the future.
    Senator Kaine. When we were with you last year in Kuwait, 
we went to Iraq immediately after, and one of the concerns we 
had, after our time in Erbil, was that the relationship between 
the Kurdish government and the central government at that time 
was pretty low. There were big disputes about oil revenue 
allocation and kind of an unwritten contract and how do we 
interpret it and a lot of suspicion and hostility. We had just 
come out of an NDAA proceeding here where there was an effort 
promoted by the Kurds to have a basically separate arming 
relationship with the United States rather than going through 
the central government.
    My perception about reports from Iraq in the last maybe 4 
months or so is that President Barzani and the current prime 
minister had had a little bit of a rapprochement without 
necessarily solving the oil revenue allocation issues. There 
seemed to be a tighter relationship, and this was maybe 3 or 4 
months ago. Is that your perception today, or is this still 
kind of a day-by-day issue in terms of the relationship between 
the Kurds and the central government?
    Ambassador Silliman. Yes, Senator Kaine. In fact, I think 
it helps prove your initial point that the fight against Da'esh 
was one of the initial reasons that Prime Minister Abadi and 
President Barzani spoke, and there has been much more military 
cooperation between the Peshmerga and Iraqi security forces. 
But in general, this has broadened to a more positive 
relationship. If confirmed, Senator, I am hoping that I can 
work with both the Erbil and Baghdad to improve this 
relationship and to deal with things like a final oil 
agreement.
    Senator Kaine. Thank you.
    Ambassador McKinley, welcome back to the western 
hemisphere. I know that this is like your passion. You have 
taken a number of other posts, but to come back in Brazil, you 
know, they just thought they would give you an easy little post 
back in your neighborhood. It is great to have you going there.
    What a challenging time. I mean, I think of the challenges 
we deal with here, and then I think about corruption and 
economic challenges and then impeachment and the Olympics and 
zika. I mean, if you wrote it, people would say it is too 
unbelievable. It has to be fictional. But that is the truth 
that you are dealing with.
    The one thing I really wanted to ask about is sort of on 
the corruption side. There was a ``Washington Post'' report 
recently about testimony about I guess one of the former 
directors of Petrobras that really implicates a whole range of 
Brazilian officials, including the interim president, in some 
pretty massive corruption. What do you think the appetite or 
likelihood will be in terms of those that are in governing 
positions to tackle the question of what, if anything, can the 
U.S. do to be of assistance in that?
    Ambassador McKinley. Well, frankly, what has been 
extraordinary, Senator, about the last 2 years is just how 
transparent the process of addressing the corruption scandals 
has been in Brazil. They have been dealing with rule of law, a 
strong constitutional process, civil society, an 
extraordinarily active media that has covered every aspect of 
this, police, federal investigators, court systems that are 
allowed to do their work largely unimpeded, the issues being 
discussed in the heart of government openly by politicians, and 
significant actors across the range of Brazilian society being 
brought to account. And so if you look at the process as it has 
evolved, it actually demonstrates the underlying strength of 
Brazilian democracy and the ability of that democracy to 
respond to the demands of its people for more transparent and 
accountable government.
    Going forward, obviously, I am not in a position--I do not 
think anyone is--to predict what a next set of revelations will 
be, but on the basis of the track record thus far, it is a very 
strong example of a society taking the corrective measures to 
set itself back on course. And Brazil over these past 20 years 
has been a country that has transformed itself, becoming not, 
as I have already mentioned one, of the largest economies in 
the world, but created a new middle class adding 50 million to 
the middle class, creating world-beating companies that compete 
globally, and becoming a much more active partner for the 
United States and the broader international community on 
transnational concerns. So not withstanding the current crisis, 
there seems to be a very strong foundation for being able to 
carry forward not just the bilateral relationship but to be 
optimistic about Brazil's future.
    Senator Kaine. Mr. Chair, I am over, but I have one 
question for each. Could I continue or would Senator Markey 
want to come in?
    Senator Cardin. It looks like you may continue.
    Senator Kaine. Great. Thank you.
    Well, Mr. Chairman, I just want to ask kind of picking up 
on the way I intro'ed it with Ambassador Silliman on Kuwait. I 
mean, we were there very briefly, and I had been there once 
before. But I was impressed in this time of tragedy that there 
was an effort to really stop it from being a sectarian point of 
division, but to pull together. What are the issues, kind of 
current status of civil society issues and human rights issues, 
in Kuwait that you will be kind of paying the most attention to 
in your post, should you be confirmed?
    Mr. Silverman. Thank you, Senator, for the question. The 
ranking member raised the question about trafficking in 
persons, which is very high up on our agenda. And I would like 
to give credit to Ambassador Silliman and his staff for all the 
work that they have done in this regard.
    Freedom of expression remains an issue that has had some 
ups and downs in Kuwait, but something that we are very much 
promoting and we are working with civil society as well. We 
have the role of women. Of course, there were female members of 
parliament in the past. There is a female member of the 
cabinet. But the parliament is often boisterous and we are 
really looking to promote across the board of those freedom of 
expression and freedom of speech issues.
    Senator Kaine. Thank you.
    And then, Ms. Perez, I have followed the fortunes of Chile 
for a very long time but have never visited. An issue that I am 
kind of interested in now is the role that Chile plays 
regionally sort of beyond its borders in terms of leadership 
with a lot of challenges in neighboring countries. Talk a 
little bit about the role that Chile plays in regional 
organizations. I think they are doing a number of things well. 
They have their own challenges certainly. They are doing a 
number of things well. Are they playing a good role in trying 
to export good practices elsewhere?
    Ms. Perez. Thank you. Senator, as you noted, Chile is 
really a success story for the hemisphere, and after the 
Pinochet era, they have really become a beacon in the area. And 
they do a lot of really good work, and I think we have the 
opportunity to do much more.
    So, for example, they took over the presidency of the 
Pacific Alliance July 1st. One of the things that President 
Bachelet has said is that she would like to reach out to 
MERCOSUR to try to reengage with that alliance, which I think 
would be a good thing both for the Pacific Alliance and for 
MERCOSUR.
    They have been very vocally recently on Venezuela starting 
with the statements in the OAS on May 20th, which the Chilean 
foreign minister wrote himself and then had that statement co-
signed by the Argentines and the Uruguayans. And they have been 
with the United States asking for an active dialogue.
    They also are working with us in Central America, and they 
support various kinds of civil society and governmental reforms 
in places like El Salvador and Guatemala. And in Honduras, they 
have actually worked with both police and judicial systems on 
rule of law.
    Senator Kaine. Excellent.
    Ms. Perez. So I really think there is an awful lot that is 
being done now, and I do think that there are opportunities for 
the future. And if confirmed, I look forward to the 
opportunities to see how we might continue to work together and 
partner. Again, I think they have a lot to offer, and sometimes 
it is good to hear from somebody in the region about what they 
might do and to model the kinds of successes that they have 
had.
    Senator Kaine. Yes. I would venture to say that Chile 
speaking out about need for reforms in Venezuela is in some 
ways a much more powerful thing than even us speaking out. And 
I know there have been frustrations expressed on this committee 
before about other nations in the Americas kind of going sad a 
voce when it comes to critiques of Venezuela, but having 
regions in the region do is it powerful. And I am glad to hear 
what you say.
    And with that, thank you, Mr. Chair.
    Senator Cardin. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ambassador Silliman, we are now nearly a month into the 
Iraqi ground offensive to defeat ISIS in Fallujah. During the 
first 3 weeks, Iraqi forces appeared to be bogged down by 
obstacles and bombs that ISIS planted on routes into the city. 
But this week, the Iraqi counterterrorism service entered the 
city center, and reports say that ISIS fighters are mostly 
withdrawing without a fight. This appears to be a tactical 
success, but I am concerned about whether Iraq's government is 
repeating patterns that could lead to strategic failure.
    On June 9, Dan de Luce and Henry Johnson wrote in Foreign 
Policy'' magazine that the battle plan for Fallujah would 
follow what, quote, American officials call the Tikrit Rules in 
informal agreements that Iranian-backed Shiite militias will 
not enter Sunni cities reclaimed from the Islamic State as the 
condition under which the U.S. will support Iraqi forces by 
bombing ISIS targets from the air. But time and again, it has 
appeared that the Iraqi Government cannot or will not uphold 
their end of this bargain.
    Since its liberation--Tikrit itself--Shia militia within 
the city have menaced Sunni civilians while ISIS continues to 
launch attacks from the outskirts.
    In Ramadi, the city center was largely destroyed to push 
ISIS out, but fighting continues outside the city.
    During the current operation in Fallujah, Shia militias are 
located outside the city center, apparently in technical 
compliance with the so-called Tikrit Rules, but they are in an 
ideal position to launch shells into the city and to intercept 
people trying to escape the violence. At the end of May, they 
were even visited by Iranian General Soleimani.
    Over the past month, we have heard very credible reports of 
indiscriminate shelling and that Shiite militia and Iraqi 
police have detained, tortured, and killed Sunni civilians who 
were detained while trying to flee to safety.
    Ambassador Silliman, what is your perspective on the so-
called Tikrit Rules that appear to ban Shia militias from 
entering city centers during an offensive, but allow them to 
take up positions where they can attack Sunni civilians?
    Ambassador Silliman. Senator Markey, thank you very much 
for the question.
    If you look at what has been happening in the past few 
weeks in Fallujah, you see both good and bad. There has been, 
in fact, a tactical military victory, and it appears that the 
Da'esh forces have now been sequestered in one or two 
neighborhoods on the outskirts of Fallujah.
    We were very concerned, Senator, by the same reports that 
saw about atrocities taking place against civilians who were 
fleeing the fighting in Fallujah. But we think that Prime 
Minister Abadi and the Iraqis have done a relatively good job 
of reacting to that.
    Senator Markey. So are we pushing Abadi to back these Shia 
away, and is Abadi doing that?
    Ambassador Silliman. Well, we are pushing Abadi to condemn 
the abuses, and Abadi has formed a high level commission headed 
by the deputy governor of Anbar Province to investigate some of 
the abuses. And there have already been arrests based on this 
investigation in a very short time.
    One other issue that we have----
    Senator Markey. He has arrested Shia leaders?
    Ambassador Silliman. Yes, sir. He has arrested people who 
were individually alleged to have committed abuses following 
the fighting in Fallujah.
    Senator Markey. So are you convinced that Abadi is putting 
in place then a set of judicial procedures that are going to 
give confidence to the Sunni majority in Tikrit or these other 
cities that in fact there is a process that will protect their 
rights?
    Ambassador Silliman. The answer is we have been pressing 
him to do so. It appears that he has actually reacted in a very 
positive way. As I said, having as the chair of the committee 
looking into the investigation, the deputy governor of the 
province where that occurred is a very important message to the 
Sunni population that the investigation will be serious. It is 
in the very early stages now, but we will continue to press 
this investigation. And as I said, I believe that the prime 
minister understands why it is necessary for him to reduce 
sectarian tensions and to bring all the communities of Iraq----
    Senator Markey. Do you think that the 2005 constitution 
provides a framework to give actual protections that are 
credible to the Yazidis, to the Kurds, to the Christians, to 
the Sunnis, and that they can credibly rely upon those 
provisions in order to give them protections given the last 11-
year history in that country?
    Ambassador Silliman. Well, Senator, one of my priorities, 
if confirmed, will be to continue the American press to help 
minority communities across Iraq. We have provided more than 
$100 million worth of assistance since 2008 to help minority 
communities.
    We also believe that the decentralization of decision-
making to the provinces will go a long way to providing 
communities themselves the ability to make the decisions to--
their own development decisions and their own security 
decisions. This is an initiative that we have supported but has 
been done by Prime Minister Abadi.
    We are in the early stages of all of this, and we will 
continue and I will continue, if confirmed, to press this to 
its natural conclusion.
    Senator Markey. Now, Mosul is going to be a much more 
difficult military proposition than Tikrit or Fallujah or 
Ramadi. And a lot of it is going to be dependent upon whether 
or not the Sunnis in that city actually believe that they are 
going to be given their rights and that they then have 
sufficient reason to go against ISIS in that city.
    And so I cannot tell you how important this is going to be 
from a political perspective. That is what we are. We are 
politicians here. That is the one thing we do know, that 
constituencies know very quickly whether or not you are on 
their side or you are not on their side. Mr. Silverman comes 
from Massachusetts, so he knows that we understand politics 
that way.
    So I urge you very strongly to send that message very 
clearly.
    And if I may, I just have one final question, if it is 
possible.
    Ambassador McKinley, I wanted to ask you about the state of 
Brazil's health care system. We all saw the call by some pretty 
prominent health experts to cancel the Olympics in Rio because 
in their view Brazilian authorities would not be able to manage 
the threat of zika. Just 7 weeks before Rio, set to host the 
Olympics, Rio's state governor said that the state government 
may not be able to provide basic services. And then Brazil's 
new health minister, Ricardo Barros, said that the country in 
the future may be unable to uphold all the rights guaranteed by 
the constitution, such as universal access to health care given 
fiscal constraints.
    This is of concern to many of us here today, not only for 
the millions of Brazilians who are facing a failing health 
system in the midst of a real public health crisis caused by 
zika and the brain disorders which it is linked to, but also 
for us here in the United States as zika becomes a real danger 
to the United States.
    So my question to you is, is Brazil's health care system in 
store for a collapse or a major shakeup? How able is the 
government to deal with the satiation given the current 
political crisis and the deepest recession in generations? How 
does universal health care compare to other social spending 
priorities of Brazilians, and are they investing enough right 
now in zika prevention in order to protect not only their own 
citizens but those of the rest of the region and in fact the 
hemisphere?
    Ambassador McKinley. That is a broad question, Senator, and 
thank you for it. But if I could take in turn the issues you 
have raised.
    Brazil, in fact, over the last 20 years has developed a 
system of health care for the broader population, a population 
of 200 million people, which is the envy of the developing 
world. And the question now in the context, as you rightly 
point out, of a major fiscal crisis, what the future holds not 
just for health services but other services inside the country.
    The immediate concern is how they respond to the zika 
crisis. And the fact of the matter is that since it came on the 
scene, the government has mobilized on a very significant level 
in terms of hundreds of thousands of health workers throughout 
the country, security personnel as well to address everything 
from awareness campaigns to controlling the mosquito vector, to 
expanding international cooperation particularly with the 
United States in exploring how to develop new vaccines, how to 
deal with the analysis and diagnosis of zika, the Guillain-
Barre syndrome, the microcephaly cases that have appeared. The 
cooperation with CDC is ongoing with HHS. But Brazil 
historically has also led in response to other crises, 
particularly HIV/AIDS, and has the infrastructure, the medical 
knowledge, know-how to respond forcefully to what is happening 
now.
    Senator Markey. Do you think Brazil will have the resources 
in place to be able to protect its population during the 
Olympics and beyond?
    Ambassador McKinley. Yes, I do. And in fact, the views both 
of CDC, the World Health Organization--today there was an 
article by the head of the Global Health Institute at Harvard--
all believe that the risk of infection from zika during the 
Olympics is extraordinarily small. And we are entering the 
winter period when the mosquito vector is much less of a 
threat.
    But more importantly are the proactive steps that are being 
taken: the $300 million the Brazilian Government has committed 
to addressing zika, the mobilization of health services, the 
coordination with CDC on developing vaccines, carrying out 
trial studies on case control in different Brazilian states. 
There is a very significant effort underway to address this. 
But for the concern of the athletes and American citizens who 
will be visiting Brazil, as I said, CDC, WHO have made clear 
that at this time they do not believe that should be a major 
concern except for women who are pregnant.
    Senator Markey. So thank you and thank each of you for your 
service to our country. You will all be excellent 
representatives.
    And thank you, Senator Cardin.
    Senator Cardin. I appreciate the responses that all the 
witnesses have made to the questions and to the information our 
committee has requested.
    As Chairman Corker indicated, the record will stay open 
till the close of business on Thursday for questions that 
members may have. We ask that you respond to them promptly so 
that the committee can complete its work in a timely way.
    I want to underscore the point that Senator Murphy made 
earlier about Senator Corker and the leadership of this 
committee moving nominations as promptly as we can to the 
floor. We know that there is a shortened calendar this year. So 
your cooperation will certainly help us a great deal.
    Again, thank you all very much.
    The committee will stand adjourned.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


 Responses of Anne Hall, Nominated to be Ambassador to the Republic of 
         Lithuania, to Questions from Members of the Committee

                 ambassador-designate hall's responses 
                    to questions from senator cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

  <diamond> What are the most pressing human rights issues in 
        Lithuania?
  <diamond> What are the most important steps you expect to take--if 
        confirmed--to promote human rights and democracy in Lithuania?
  <diamond> What do you hope to accomplish through these actions?

    Answer. I am pleased to highlight my efforts to promote human 
rights and democracy during my career, focusing on my accomplishments 
over the last ten years.
    During my 2006-2009 tenure as Consul General in Krakow, I broadened 
our outreach on tolerance and Holocaust legacy issues. Our ``Bridges to 
the East'' program brought dozens of Ukrainian journalists to Poland 
over a three-year period for capacity building programs on democracy 
and human rights, with an emphasis on tolerance. I also helped the 
founder of the Raphael Lemkin Center for Genocide Prevention to secure 
its initial location in space provided by the Auschwitz-Birkenau State 
Museum.
    While I served as Deputy Chief of Mission and Charge d'Affaires in 
Vilnius (2010-2013), our engagement with civil society strengthened the 
hand of Lithuanian human rights NGOs through the establishment of an 
umbrella organization called the Human Rights Coalition. The coalition 
included the Lithuanian Gay League, the Jewish Community of Lithuania, 
the Human Rights Monitoring Institution, and organizations dedicated to 
women's rights. Together, these NGOs were able to promote democratic 
values and human rights more forcefully and effectively in Lithuania 
than they could on their own.
    During my tenure as DCM, Embassy Vilnius also contributed 
significantly to the passage of legislation criminalizing domestic 
violence in Lithuania. Through a series of roundtables and meetings, we 
provided the venue for stakeholders to join forces to press for the 
legislation. We also provided training for police and prosecutors to 
ensure their support for the new law. Civil society members told us 
that U.S. Embassy efforts were key to passage of this important 
legislation.
    The Embassy engaged equally deeply on Holocaust legacy issues in 
Lithuania. In 2010, Embassy Vilnius became the first U.S. embassy to 
receive a grant from the International Task Force on Holocaust 
Education to develop a three-year ``train-the-trainers'' program on 
Holocaust studies. We also worked closely with the American Jewish 
Committee, the Jewish Community of Lithuania, and members of parliament 
to facilitate the passage of ground-breaking legislation to compensate 
the Jewish victims of the Holocaust in Lithuania.
    Lithuania has made significant progress in institutionalizing and 
prioritizing human rights. Achievements in recent years include passage 
of legislation to deinstitutionalize childcare for orphans, reduce 
domestic violence, and restitute Jewish communal property. Lithuania 
has also developed strategic plans to reduce corruption and fight human 
trafficking.
    Work remains to be done to increase tolerance toward minorities and 
to improve aspects of the justice system and children's welfare. 
Intolerance includes anti-Semitism as well as prejudice against LGBTI 
persons and ethnic minorities. Roma, in particular, continue to 
experience poor living conditions and face social exclusion and 
discrimination. In the justice system, conditions are substandard in a 
number of prison and detention facilities, and lengthy pretrial 
detention is a problem. The continuing practice of institutionalized 
child care is often detrimental to the children's health and makes them 
more vulnerable to delinquency, trafficking, and prostitution.
    If confirmed, I will press the government to enact meaningful 
reforms that address these human rights issues, and I will work to 
foster dialogue between government and civil society to implement those 
reforms. I will also work to connect Lithuanian reformers with U.S. 
practitioners who can share their best practices and experience.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Lithuania in 
advancing human rights, civil society and democracy in general?

    Answer. The primary obstacles to addressing human rights issues in 
Lithuania are insufficient government coordination and financial 
assistance for NGOs. There is frequently a lack of coordination between 
the national government and the municipalities, which are the chief 
executors of key reforms. NGOs and civil society groups also often cite 
a shortage of government funding, and Lithuania lacks a developed 
culture of philanthropy. As such, civil society organizations depend on 
a shrinking pool of assistance from foreign governments and 
international organizations. If confirmed, I will work with civil 
society to identify creative new funding mechanisms to promote bottom-
up change.
    If confirmed, I will also continue the work of Embassy Vilnius in 
pressing the Lithuanian government to address these challenges to 
protecting human rights, as the Embassy has successfully done to 
improve government coordination in the fight against human trafficking.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Lithuania? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Embassy Vilnius has actively engaged with civil society in 
promoting the full spectrum of human rights issues in Lithuania. The 
Embassy's small grants program has funded a variety of projects to 
build civil society capacity, raise awareness of the need to protect 
human rights, and encourage change. If confirmed, I will continue our 
strong support of human rights and civil society groups to advance 
those rights that need greater protection.
    Thankfully, in Lithuania's brief history of restored independence, 
there have been no gross or systematic abuses of human rights that have 
warranted assistance restrictions for units of the security forces 
subject to the Leahy Law. If confirmed, I will continue to reinforce 
the importance of promoting accountability in the security forces by 
encouraging the host government to bring perpetrators to justice when 
there is credible information that a gross violation of human rights 
has been committed. My commitment to upholding our legal requirement 
under the Leahy Law and to the core belief that assisting foreign 
governments to strengthen accountability mechanisms and respect for 
human rights, will help promote our goal for a Europe that is whole, 
free and at peace.

    Question.  Will you engage with Lithuania on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Defending human rights is a pillar of U.S. foreign policy. 
If confirmed, I will look forward to continuing our embassy's active 
engagement with the Lithuanian government to promote our shared values 
of human rights as an important driver of democracy and a key 
ingredient of a thriving society.

    Question.  Will you and your embassy team actively engage with 
Lithuania to address cases of key political prisoners or persons 
otherwise unjustly targeted by Lithuania?

    Answer. Lithuania is a liberal democracy and EU member state with 
no political prisoners. If this situation were to deteriorate, my 
embassy team and I would quickly and assertively engage the Lithuanian 
government, civil society, and likeminded embassies to address the 
situation and achieve an outcome befitting Lithuania's legacy as a 
resilient, liberal democracy.

                               __________
                 ambassador-designate hall's responses 
                    to questions from senator rubio

    Question.  In March 2016 before the Senate Armed Services Committee 
General Philip Breedlove, Supreme Allied Commander Europe and Commander 
of U.S. European Command stated that ``Russia has chosen to be an 
adversary and poses a long-term existential threat to the United States 
and to our European allies and partners.'' Do you agree with General 
Breedlove's assessment that Russia poses a ``long-term existential 
threat'' to the U.S. and its allies, including Lithuania?

    Answer. At this time, our bilateral relationship with Russia, as 
well as Russia's relationship with our European allies, has suffered 
due to Russian aggression in eastern Ukraine, its occupation of Crimea, 
and its destabilizing behavior and rhetoric. We have repeatedly 
conveyed our concerns about Russian aggression to Russian officials, 
and we will not return to ``business as usual'' with Russia as long as 
it continues to undermine European security and international norms and 
principles. In coordination with our NATO Allies, including Lithuania, 
we are responding effectively to this challenge. We continue to 
increase the capability, readiness, and responsiveness of NATO forces 
to address any threat and deter further destabilizing activities.
    Russia's significant strategic nuclear capabilities have long posed 
a threat to the United States and its allies and those capabilities 
will continue to do so for the foreseeable future. That is why it is so 
important that we develop effective channels of communication and arms 
control mechanisms to provide transparency and predictability and to 
avoid miscalculation. It is also why we continue to invest in a safe, 
secure, and effective nuclear deterrent. While we have downgraded our 
bilateral relationship with Russia due to its continued aggression in 
Ukraine and elsewhere in Europe, the New START treaty and its 
implementation mechanisms have been key to ensuring a measure of 
stability at the strategic level.

                               __________
                 ambassador-designate hall's responses 
                    to questions from senator perdue

    Question. In 2015, Lithuania supported an EU proposal to re-settle 
120,000 refugees and migrants currently in Italy and Greece to the 
other member states. Lithuania agreed to accept 1,105 refugees, mainly 
from Syria--a process which has been slow to actualize. What are your 
views on the agreement to accept this number of refugees? Do you have 
any thoughts on how we can find a remedy for the delay? How do we 
contend with the lack of popularity from the Labor Party and the Order 
& Justice Party within the coalition government?

    Answer. In 2016, Lithuania pledged to accept 921 relocated asylum 
seekers from Greece and Italy and to resettle 70 refugees from Turkey 
as part of the EU-Turkey Joint Action Plan, updating its previous 
commitments under the EU resettlement and relocation mechanisms 
approved in 2015.
    To date, Lithuania has relocated 21 asylum seekers from Greece and 
resettled five Syrian refugees from Turkey. Currently, Lithuania is not 
a major destination or transit country for migrants. Authorities say it 
is difficult to find asylum seekers who want to relocate to Lithuania.
    On June 10, 2016, the leaders of Lithuania's ruling coalition 
parties, including the Labor Party and the Order and Justice Party, 
signed a non-binding political agreement underlining that while 
Lithuania will meet its current resettlement/relocation commitment with 
the EU, Lithuania must not agree to additional mandatory refugee 
resettlement quotas. The agreement reflects opinion polls which show 
that the Lithuanian public is divided in attitudes toward immigration.
    In addition to agreeing to accept approximately 1,000 asylum 
seekers and refugees under the 2016 EU-Turkey Joint Action Plan, 
Lithuania has also contributed 25 escort officers to Greece and =5.2 
million to the Turkey Refugee Facility. These funds follow other forms 
of assistance as follows:

  <diamond> In 2015,=100,000 to the EU regional Trust Fund in response 
        to the Syrian crisis; =150,000 to the Migrants and Refugees 
        Fund of the Council of Europe Development Bank; =50,000 to the 
        U.N. Global Food Program for Syria; and =60,000 to the U.N. 
        Refugee Agency.
  <diamond> In 2016, a humanitarian aid shipment worth =61,000 to 
        Greece for refugees; and a pledge to allocate =70,000 in 
        humanitarian aid through the U.N. to support Syrian refugees.

    The United States commends the commitment the EU and its member 
states have demonstrated in seeking a comprehensive and coordinated 
response to the influx of migrants and refugees from Syria and other 
nations. Lithuania's commitment to fulfill its obligations under the EU 
relocation and resettlement mechanisms is an important step in 
addressing this challenge facing our European partners.
    If confirmed, I will encourage Lithuania to continue to support a 
coordinated EU response that focuses on saving lives, providing timely 
humanitarian assistance, ensuring the human rights of all migrants are 
respected, promoting orderly and humane migration policies, and 
ensuring that proper screening and registration procedures are in place 
to facilitate appropriate assistance and provide protection to those in 
need.

    Question.  With the European Reassurance Initiative (ERI), the 
United States has provided an augmented force presence, increased 
exercises, and pre-positioned assets in order to bolster security 
within the Baltic States. In June 2015, U.S. Secretary of Defense 
Ashton Carter announced that the U.S. would pre-position equipment 
(i.e. Abrams tanks, infantry fighting vehicles, and self-propelled 
howitzers) in the Baltic and Central European countries in order to 
support the activities of rotational forces. In your opinion, is this 
enough to ensure Lithuania's security? If not, what more would you like 
to see, particularly in Lithuania, in terms of the adequate number of 
NATO troops and type of equipment?

    Answer. Since March 2014, the United States has taken action, both 
bilaterally and through NATO, to reassure Allies, including Lithuania, 
of our solemn commitment to their security and territorial integrity as 
members of the NATO Alliance.
    The United States has used the $1.06 billion in FY 2015 European 
Reassurance Initiative (ERI) funding that Congress appropriated to 
increase the number of exercises, training sessions, deployments, and 
broader security assistance to our European Allies and partners, 
including Lithuania. All 28 NATO Allies have been participating in 
NATO's assurance measures.
    We hope to enhance our presence in the coming year to transition 
from assurance measures to active and sustained deterrence, which is 
why President Obama has requested $3.4 billion to fund ERI in FY 2017. 
These funds will be used to deploy an additional rotational Armored 
Brigade Combat Team to Central and Eastern Europe; the prepositioning 
of combat equipment; and additional trainings and exercises in Europe.
    I believe that with the measures we are taking, we are already on 
the right path to upholding our Article 5 commitments to Lithuania and 
the broader NATO Alliance.

    Question.  On June 22nd, the commander of U.S. ground forces in 
Europe, General Ben Hodges, stated that ``Russia could take over Baltic 
States faster than we would be able to defend them'' and that Russia 
could ``conquer the capitals of Latvia, Lithuania, and Estonia within 
36 to 60 hours.'' Do you agree with this assessment? If so, what 
actions, military and economic, should Lithuania take now to prepare 
for this possible type of action from Russia?

    Answer. I believe that all of the measures the United States and 
NATO Allies have committed to taking assist in strengthening our 
deterrence and defense posture in the region and demonstrate our 
ironclad commitment to Article 5.
    I would also like to point out the measures that Lithuania itself 
has been undertaking to enhance its national defense capabilities for 
both conventional and hybrid warfare.
    Lithuania has pledged to meet the NATO defense spending benchmark 
of two percent of GDP by 2018, reaching 1.5 percent this year. The 
government is using its increased defense budget to invest in modern 
equipment and improve NATO interoperability. Among its defense 
acquisitions are anti-tank and anti-aircraft systems, infantry fighting 
vehicles, self-propelled howitzers, precision and sniper weapons, and 
air-space surveillance.
    The Lithuanian government has also introduced a series of security 
reforms to reintroduce limited conscription (discontinued in 2008), to 
define legal authorities that subsume the country's security 
institutions under the authority of the Ministry of Defense (MOD) 
during marshal law or declaration of war, and to establish a national 
cyber security authority and strategy.
    If confirmed, I will encourage Lithuania to continue down this 
path, increasing its value as a NATO ally as it enhances its ability to 
deter aggression and defend itself.

    Question.  Litgrid, the operator of Lithuania's electricity 
systems, has been constructing the LitPol link connection with Poland 
and the undersea NordBalt cable connection with Sweden in order to 
integrate the country's power grid into the wider European electricity 
market? What is the status of these two projects? How would you advise 
President Grybauskaite to deal with interference from Russian naval 
vessels that seek to prevent Lithuania's energy independence?

    Answer. LitPol Link and NordBalt, two EU co-financed electricity 
interconnectors with Lithuania, have come on line this year. For the 
first time Lithuania is directly plugged into the EU power grid: LitPol 
Link connects Lithuania to the Continental Europe electricity grid in 
Poland; NordBalt, to the Nordic power network in Sweden. These 
interconnectors are projected to reduce Lithuania's dependence on 
Russian electricity from 70 percent to less than 25 percent, and to 
lower the price of electricity by 12 percent.
    In the spring of 2015, the governments of Sweden and Lithuania 
conveyed their concerns to Russian authorities regarding several 
incidents in which the installation of NordBalt was interrupted by 
Russian warships under the guise of protecting their military exercise 
zones in the Baltic Sea. By June 2015, such interruptions had stopped, 
and NordBalt came on line as scheduled earlier this year.

    Question.  In your view, what are the United States' strategic 
interests in Lithuania? How are NATO and the U.S. ensuring Lithuania's 
security?

    Answer. The primary U.S. interests our embassy has been working to 
advance in Lithuania are the following:

  <diamond> Keeping Lithuania a strong provider of security. Lithuania 
        is a good friend and NATO Ally. It works with us closely on a 
        range of regional and global issues of paramount importance to 
        U.S. national security. We welcome Lithuania's commitment to 
        increase defense spending to the NATO benchmark of 2 percent of 
        GDP by 2018, and we are working together to modernize 
        Lithuania's defense capabilities and enhance NATO 
        interoperability. Accordingly, Lithuania has supported the 
        implementation of NATO's Readiness Action Plan to respond to 
        security challenges 360 degrees around Alliance territory. 
        Lithuania is also contributing to other operations key to U.S. 
        security, such as the Counter-Da'esh Coalition and the NATO-led 
        Resolute Support Mission in Afghanistan. Additionally, the 
        United States has taken action, both bilaterally and through 
        NATO, to reassure Allies, including Lithuania, of our solemn 
        commitment to their security and territorial integrity as 
        members of the NATO Alliance. One example of how this is being 
        done includes that the United States has used the $1.06 billion 
        in FY 2015 European Reassurance Initiative (ERI) funding to 
        increase the number of exercises, training sessions, 
        deployments, and broader security assistance to our European 
        Allies and partners, including Lithuania. All 28 NATO Allies 
        have been participating in NATO's assurance measures.
  <diamond> Forging stronger bilateral economic ties. To advance the 
        President's National Export Initiative as well as assist in 
        maintaining the economic resilience of our NATO Ally, we 
        promote export and investment opportunities for U.S. companies 
        in Lithuania, encourage Lithuania's support for the 
        Transatlantic Trade and Investment Partnership (TTIP), and work 
        to advance innovation and entrepreneurship ties between 
        Lithuania and the United States. We have also promoted 
        increasing transparency in government tenders, the protection 
        of intellectual property rights, and flexibility in the labor 
        code.
  <diamond> Promoting democratic values abroad and in Lithuania. Since 
        2010, Lithuania has taken on increasingly prominent roles in 
        transatlantic and international organizations (the Community of 
        Democracies, the OSCE, the EU, and the U.N. Security Council), 
        a trajectory we have supported, especially with regard to 
        Lithuania's use of its leadership to advance democratic reforms 
        in the former Soviet states and beyond. We also support the 
        efforts of Lithuania's young democracy to advance human rights 
        at home. We promote tolerance, accountability, and inclusive 
        domestic policies in our dialogue with the government and civil 
        society, highlighting the need to confront ethnic, religious, 
        and other forms of intolerance in our outreach programs.

    If confirmed, I will continue the good work of our embassy in 
advancingU.S. security, economic, and democratic interests with 
Lithuania both locally and on a global scale.

    Question.  How do you assess the various ways Russia could threaten 
or put pressure on Lithuania: energy dependence, ``information 
warfare,'' attempts to influence Lithuania's ethnic Russian minority or 
other elements of the political system, cyber attacks, and military 
activities including airspace incursions and the proximity of forces in 
Kaliningrad? Which of these pose the most serious threats to 
Lithuania's security and independence?

    Answer. We view Russia's use of disinformation, energy as a 
political tool, incursions into Baltic airspace, and increased snap 
exercises along Lithuania's borders with concern. In response to these 
actions, we have engaged with Lithuania to enhance the strength of its 
military defense, including in concert with NATO Allies, build the 
media literacy of its population, and advance the diversification of 
its energy supply.
    Allies have demonstrated solidarity in supporting the assurance 
measures of NATO's Readiness Action Plan and have pledged to correct a 
long-term decline in defense investment. The United States has 
contributed bilaterally through ERI to the initiatives of Allies, 
particularly the Baltic States, to secure and safeguard their own 
defense. This support complements national efforts by Lithuania.
    With a well-funded and sophisticated propaganda machine, Russia has 
portrayed the West, NATO, and the United States as adversaries of the 
Russian people. The United States has taken a comprehensive approach to 
addressing Russian disinformation by working closely with our Baltic 
partners to build societal resilience, support a robust independent 
media, and provide an alternative narrative by building closer ties 
between Americans and Baltic citizens of all stripes.
    Although ethnic Russian Lithuanians make up only six percent of 
Lithuania's population, Russian speakers account for 15 percent. We 
have supported the Lithuanian government's efforts to reach out to this 
linguistic community to overcome societal tensions and feelings of 
marginalization. Our embassy in Vilnius also conducts extensive 
outreach to Russian speakers in Lithuania, engaging students, 
journalists, and other members of this group to share U.S. 
perspectives.
    Europe's dependence on Russian energy remains one of its greatest 
vulnerabilities to political and economic coercion. The United States 
has been supporting EU efforts to advance the diversification of energy 
sources and routes in the entire Baltic region to reduce vulnerability 
to Russia's use of energy as a political tool. Over the past few years, 
Lithuania has made impressive progress in this area. It launched a 
self-financed LNG terminal in January 2015, decreasing its dependence 
on Russian gas from 100 percent to approximately five percent today. It 
also inaugurated two EU-financed electricity links to its European 
neighbors early this year, which are projected to reduce Lithuania's 
dependence on Russian electricity from 70 percent to less than 25 
percent. As such, Lithuania is a model for others seeking to enhance 
their security of energy supply.

    Question.  What do you think are the aims of Russian policy toward 
Lithuania and the other Baltic countries?

    Answer. We can only infer what Russia's current policy is toward 
the Baltic states from the recent actions it has undertaken towards 
them. Russia's use of hybrid warfare in the Baltic region, along with 
its attempted annexation of Crimea and aggression in Eastern Ukraine, 
has sown anxiety among Lithuania's populace, many of whom perceive such 
behavior as a threat to the country's hard-won independence.

    Question.  How would you, as ambassador, promote the expansion of 
U.S.-Lithuania trade and investment ties? How does Lithuania view the 
prospective Transatlantic Trade and Investment Partnership (TTIP) under 
negotiation between the United States and the EU?

    Answer. Lithuania is a strong advocate of transatlantic economic 
ties. Polling shows high public support for the Transatlantic Trade and 
Investment Partnership (TTIP) at approximately 78 percent. Policymakers 
and the private sector have realized that TTIP not only promises 
economic benefits but is also of strategic importance as a second 
anchor to the transatlantic security relationship.
    Lithuania's economy is one of the fastest growing in the European 
Union with GDP predicted to grow 2.6 percent this year. In spite of 
this growth in GDP, unemployment stands at close to 8 percent. 
Lithuania is grappling with an emigration ``brain drain,'' mostly to 
the UK, Scandinavia, and Ireland. An estimated one million Lithuanians 
have departed the country since independence in 1991.
    To staunch this population loss, Lithuania is already doing many of 
the right things to increase trade and investment. Lithuania offers 
investors a diversified economy, EU rules and norms, a well-educated 
multilingual workforce, comparatively low wages, advanced IT 
infrastructure, and a stable democratic government. The country joined 
the Eurozone in January 2015 and is ranked 20th in the World Bank's 
Ease of Doing Business rankings. To further improve its investment 
climate, the Lithuanian parliament recently passed a new labor code 
that increases flexibility in hiring practices.
    In 2015, the United States was Lithuania's 7th largest trading 
partner, with more than $1.5 billion in total trade. Well-known U.S. 
firms such as Western Union and ThermoFisher have established a 
presence in Lithuania. To expand opportunities for Lithuania's talented 
youth (whether of Polish, Russian, or Lithuanian descent) that will 
also benefit U.S. companies, Embassy Vilnius has been fostering 
collaboration between the tech sectors in Lithuania and the United 
States. The embassy has sponsored speakers on innovation and 
entrepreneurship and connected Lithuanian entrepreneurs with SelectUSA. 
Embassy Vilnius is also supporting the efforts of the American-
Lithuanian Business Council and the Baltic-American Freedom Foundation 
to launch a Lithuanian American Innovation Award to recognize a 
Lithuanian innovator for his/her collaborative work with a U.S. 
academic or business interest.
    If confirmed, I will continue Embassy Vilnius' efforts to encourage 
innovation-focused networking and partnerships among U.S. and 
Lithuanian business, industry, and educational institutions both within 
Lithuania and in the United States.

                               __________

 Responses of Hon. Marie L. Yovanovitch, Nominated to be Ambassador to 
          Ukraine, to Questions from Members of the Committee

             ambassador-designate yovanovitch's responses 
                    to questions from senator cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career I have actively promoted human rights 
and democracy. For example, as U.S. Ambassador to Armenia, I actively 
encouraged reform and worked to expand the capacity of civil society 
and the media through programming, public events, and private advocacy. 
A speech I gave on the need to continue democratic reforms in Armenia 
in March 2011 catalyzed a public conversation on a sensitive subject 
and continues to be a reference point today. Our advocacy for an 
imprisoned whistleblower not only reversed her conviction, but 
activated a government investigation into the wrongdoing that she had 
exposed. After a number of individuals were arrested following 
contentious 2008 presidential elections, we pressed for due process, 
transparent investigations, and an improved electoral process. For my 
work regarding these political prisoners, the State Department awarded 
me the Diplomacy for Human Rights Award, which is presented to a U.S. 
Chief of Mission who has demonstrated extraordinary commitment to 
defending human rights and advancing democratic principles of 
government in his or her host country. If confirmed, I look forward to 
continue promoting human rights and democracy as Ambassador to Ukraine.

    Question.  What are the most pressing human rights issues in 
Ukraine? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Ukraine? What do 
you hope to accomplish through these actions?

    Answer. Russian aggression in eastern Ukraine and Russia's 
occupation of Crimea are the root causes of the most pressing issues in 
Ukraine, including human rights issues. Pressuring Russia and the 
separatists to implement the Minsk agreements in full and to end the 
occupation of Crimea is the best way to restore peace in Ukraine and 
improve respect for human rights in these regions.In eastern Ukraine, 
separatists, supported by Russian military and civilian officials, 
continue to control parts of Donetsk and Luhansk regions by force of 
arms, as self-proclaimed ``people's republics.'' Separatists 
systematically engaged in abductions, physical ill-treatment, and 
unlawful detention. Separatists also have restricted humanitarian aid. 
Rule of law has been severely undermined in separatist-held 
territories. Separatists act with complete impunity, and residents are 
reluctant to turn to local authorities for fear of reprisals.
    In Russian-occupied Crimea, the human rights situation has 
deteriorated dramatically, with mounting repression and harassment of 
individuals from minority communities, particularly Crimean Tatars, 
those of non-Russian-Orthodox Christian faiths, independent 
journalists, and those who oppose Russia's occupation. Occupation 
authorities have systematically denied individuals their fundamental 
freedoms of speech, assembly, association, and religious expression. 
Local residents have been detained, interrogated, and, in many cases, 
been subjected to forced disappearances. NGOs and independent media 
have been driven out of the peninsula. Russian occupation authorities 
have also banned the Mejlis, the legislative body of the Crimean 
Tatars.
    To a much lesser extent, there are also reports of abductions, 
torture, and unlawful detention by Ukrainian government forces, as well 
as government-imposed restrictions on freedom of movement. Ukraine 
faces other human rights issues such as the abuse of persons in 
custody, in particular beatings and alleged torture of detainees and 
prisoners, harsh conditions in prisons and detention facilities, and 
harassment against LGBTI persons.
    While Ukraine has made more reform progress in the wake of the 
Revolution of Dignity than in all previous years since the restoration 
of Ukrainian independence, many challenges still remain. Corruption, 
especially in the judicial system, remains a serious concern and erodes 
citizens' trust in their government. Ukraine's media sphere, though 
vibrant and diverse, is still beset by non-transparent ownership 
structures and oligarchic influence. In the face of Russian propaganda, 
we have encouraged the Ukrainian government to ensure respect for 
freedom of expression and the media.
    If confirmed, I will continue to press for the full implementation 
of the Minsk agreements and for Russia to end its occupation of Crimea. 
Until Ukraine regains full control of its territory as lawful sovereign 
nation, we must continue to highlight Russia's and the separatists' 
abuses and push for international access to the territories under their 
control.
    At the same time, I will press the Government of Ukraine to ensure 
a prompt, thorough, and transparent investigation and appropriate 
prosecution of all persons responsible for alleged incidents of abuses 
perpetrated by its forces. I will also raise such human rights issues 
as prison conditions and violence and discrimination against LGBTI 
persons with the highest levels of the Ukrainian government in order to 
seek justice for those abused and to improve the lives of others who 
face discrimination. I will also work closely with Ukraine's vibrant 
civil society and independent media sectors to strengthen these 
critical pillars of democratic governance that help citizens hold their 
government accountable.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Ukraine in 
advancing human rights, civil society and democracy in general?

    Answer. Russian aggression in eastern Ukraine and Russia's 
occupation of Crimea represent the most significant obstacles to 
advancing human rights in Ukraine. The United States and the 
international community must maintain pressure on Russia to end its 
aggression in eastern Ukraine and its occupation of Crimea, which will 
enable Kyiv to better address human rights issues in its territory.
    In territories under Kyiv's control, Ukraine continues to suffer 
from corruption and deficiencies in the administration of justice. 
Human rights groups and the United Nations noted there were few 
investigations into human rights abuses committed by security forces, 
and corruption in the Prosecutor General's Office and the judiciary was 
of particular concern. Breaking the hold of oligarchs over Ukrainian 
politics and business is also a key part in transforming Ukraine.
    The departure of Ukraine's previous Prosecutor General and the 
passage of legislation to reform the judiciary signal progress in 
combating corruption. The new Prosecutor General Yuriy Lutsenko has 
already made arrests of former high level officials for corruption, 
which must be followed with credible and transparent investigations and 
prosecutions. More remains to be done, however; and we continue to 
press the new government for real, credible, and transparent 
investigations into human rights abuses.Questions for the Record 
Submitted to

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Ukraine? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights activists, 
members of civil society, other non-governmental organizations, and 
religious and ethnic groups, including Crimean Tatars, in the United 
States and in Ukraine. These institutions and organizations have proven 
to play a key role in advancing human rights in countries where I have 
served and throughout the world.
    If confirmed, I will ensure Embassy Kyiv continues to work 
proactively to implement the Leahy Law. We will continue to vet 
Ukrainian units receiving U.S. security assistance according to the 
Leahy Law, in addition to providing training on the protections of 
human rights and international law. If confirmed, I will continue to 
reinforce the importance of promoting accountability in the security 
forces by encouraging the Ukrainian government to bring perpetrators to 
justice, when there is credible information exists that a gross 
violation of human rights has been committed.

    Question.  Will you and your embassy team actively engage with 
Ukraine to address cases of key political prisoners or persons 
otherwise unjustly targeted by Ukraine?

    Answer. If confirmed, my Embassy team and I will remain committed 
to promoting the human rights of all individuals. The current Ukrainian 
government has not engaged in unjustly detaining individuals on 
politically-motivated grounds; however, I will continue to engage with 
Ukrainian leaders to ensure that all individuals are treated equally 
under the law.

    Question.  Will you engage with Ukraine on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Defending human rights, including the freedom of 
expression, is a pillar of U.S. foreign policy. I plan to consistently 
engage with Ukrainian officials at the highest level to promote our 
shared values of human rights, including freedom of religion or belief, 
and the freedoms of speech, assembly, and association.

    Question.  As U.S. Ambassador to Ukraine, how will you push the 
Ukrainians to make greater progress on anti-corruption reforms? Would 
you advocate for the U.S. to use tools, such as indictments in U.S. 
courts, to pursue corrupt figures in Ukraine?

    Answer. The Ukrainian government is implementing an ambitious anti-
corruption and rule of law reform agenda. Although Kyiv has made 
tremendous progress, much more must be done. Our highest priorities are 
improving the effectiveness of the operations of the new anti-
corruption institutions, reform of the prosecutorial and judicial 
system, and police reform.New anti-corruption institutions are up and 
running and continue to receive our support. With U.S. government 
financial support and technical assistance, the National Anti-
Corruption Bureau (NABU) was established with a special anti-corruption 
prosecutor and is currently conducting investigations. The PGO's new 
Inspector General Unit is also now functioning with a regulation in 
place that was drafted with U.S. government assistance, and we are 
hopeful that the prosecutorial reform process will be rejuvenated now 
that a new Prosecutor General has been appointed.
    The constitutional amendments required to bolster judicial 
independence have been adopted, opening the door for judicial reform. 
The most visible and celebrated reform has been the establishment of 
the U.S. government-supported new patrol police that replaced the 
notoriously corrupt traffic police in all oblasts. Government 
transparency will be enhanced by new laws on e-procurement, public 
officials' asset disclosures, and openness on media companies' 
ownership.
    All of these reforms indicate a strong political will on behalf of 
the Government of Ukraine to make greater progress, and our programs 
will continue to support anti-corruption measures in almost every 
sector where we are involved, whether it is transparency in education 
management, budgeting methods in public finance, the new public 
procurement system, or specifically strengthening the National Agency 
for Prevention of Corruption. There is much yet to be done, especially 
in the customs, taxation, energy, and justice sectors, and we will be 
there providing financial support, expertise, and encouragement in all 
these areas. These reforms are critical to Ukraine's future and have 
been valiantly fought for by ordinary Ukrainians. If confirmed, I will 
ensure that we continue to press for and provide assistance to support 
further anti-corruption reforms.
    If corrupt individuals in Ukraine are alleged to have committed 
crimes over which the United States can exercise jurisdiction, then the 
appropriate U.S. authorities can investigate those allegations and, 
depending on the outcome of those investigations, initiate 
prosecutions. However, if confirmed as Ambassador, I will make it a 
priority to work with Ukraine to help Ukraine develop a judicial system 
that is capable of credibly investigating and prosecuting corrupt 
individuals.

    Question.  How will you work with the Ukrainians to advocate for 
greater progress deinstitutionalizing this marginalized community?

    Answer. Persons with developmental disabilities belong in families 
and should be a part of the fabric of Ukrainian society. The 
approximately 82,000-200,000 children institutionalized in state-run 
orphanages, many of whom have a developmental disability, are 
especially vulnerable to trafficking. If confirmed, I will be committed 
to helping to identify ways to integrate this vulnerable population 
into Ukrainian society and combat their being made victims of 
trafficking. My efforts will include meeting with NGOs working with 
persons with developmental disabilities and highlighting these issues 
with the appropriate authorities in the Government of Ukraine. I will 
also look for opportunities to share the U.S. experience of de-
institutionalizing persons with developmental disabilities and 
transitioning them into the community as well as identifying creative 
solutions to help the developmentally disabled in Ukraine.

                               __________
             ambassador-designate yovanovitch's responses 
                    to questions from senator rubio

    Question. In February, Ukrainian activist, Roman Sohn wrote that 
Minsk-2 is essentially a ``farce'' because ``while Russia does nothing 
to implement the agreement, the U.S. and EU are forcing Minsk-2 down 
the throat of Kyiv and that Putin knows that it is much easier for the 
West to put pressure on Ukraine to accept bad terms than to forge a 
consensus on keeping the pressure, including sanctions, on Russia.'' Do 
you share Mr. Sohn's views?

    Answer. We believe the Minsk agreements are the only way to resolve 
the conflict in eastern Ukraine peacefully. We are working closely with 
the Normandy partners to support their efforts to accelerate the full 
implementation of the Minsk agreements.
    Ukraine has made a good faith effort to implement its Minsk 
commitments. We believe that it is unrealistic to expect Ukraine to 
pass the remaining political aspects of Minsk while combined Russian 
separatist forces continue to attack Ukrainian positions, intimidate or 
shoot at SMM monitors, refuse to provide the OSCE full, unfettered 
access to separatist-controlled areas, and shoot down the 
organization's UAVs.
    We continue to press Russia to stop the violence, as it has shown 
in the past it is capable of doing, and to stop providing the 
separatists with the arms, training, and command-and-control support 
that fuel the conflict. We have also pushed to maintain transatlantic 
unity on sanctions. We and our partners must continue to be clear with 
Moscow that our sanctions on Russia will remain in place until it fully 
implements its Minsk commitments.

    Question.  As Ambassador, would you support the provision of lethal 
assistance to the Government of Ukraine?

    Answer. I would not rule out sending lethal weapons to Ukraine and 
strongly support our ongoing efforts to strengthen and build the 
capacity of Ukraine's forces. We continue to believe that there is no 
military resolution to the crisis, but Ukraine has the right to defend 
itself. We remain committed to supporting full implementation of the 
Minsk agreements, and our diplomatic efforts focus on supporting 
discussions in the Normandy format and in the Trilateral Contact Group 
to expedite their full implementation.

                               __________
             ambassador-designate yovanovitch's responses 
                   to questions from senator shaheen

    Question.  Ambassador Yovanovitch, as Ukraine rightly takes steps 
to ensure that corrupt officials from the Yanukovych-era are held to 
account for their crimes against the Ukrainian people, are you 
satisfied that sufficient due process protections remain in place for 
these prosecutions?

    Answer. Ukraine has a legal system of due process protections that, 
unfortunately, have not always been implemented in a credible, 
transparent, and consistent manner.
    In our assistance, we have made it a priority to help support 
Ukraine in legally holding any corrupt officials to account for their 
crimes, while safeguarding each suspect's due process rights. For 
example, in our assistance to help Ukraine set up new bodies like the 
National Anti-Corruption Bureau (NABU), we have insisted that they 
reinforce due process protections. Our backing for these anti-
corruption bodies will help Ukraine apply Western standards to due 
process protections when applied to any such prosecutions.
    If confirmed, I will continue to press the need for Ukraine to 
safeguard basic human rights, including transparency and the right of 
due process for all of its citizens.

                               __________

     Responses of Geoffrey R. Pyatt, nominated to be United States 
    Ambassador to Greece to Questions from Members of the Committee

                ambassador-designate payatt's responses 
                    to questions from senator cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Human rights have been a central aspect of my Foreign 
Service career going back nearly 25 years to when I was a political 
officer in Delhi and wrote the Human Rights Report for India. In my 
opinion, the most important impact of my actions came in the winter of 
2013-2014, when Ukrainians struggled to build their democracy and rose 
up against former president Viktor Yanukovych. From the morning of 
December 20, 2013, after students who had been beaten on the Maidan 
fled to St. Michael's Monastery, I made it a priority to ensure that 
the U.S government was seen as standing with the Ukrainian people in 
defense of freedom of speech and their right to make their own 
sovereign choices about the future.
    During the events on the Maidan, I spoke out forcefully and 
consistently for a non-violent resolution of the crisis in a way that 
upheld Ukrainian democracy. After the revolution, I led the U.S. 
government effort to ensure democratic elections for President and the 
Rada and to ensure Ukraine moved towards European standards of 
democracy, rule of law, and anti-corruption. These actions have given 
rise to the best chance since independence in 1991 to build a Ukraine 
that lives up to European rules and norms and is embedded in European 
institutions. Now the work lies with the Ukrainian people to capitalize 
on this opportunity, but I am proud of the role the United States has 
played in giving Ukraine the chance it deserves to be fully part of a 
Europe whole, free, and at peace. If confirmed, I look forward to 
continue promoting human rights and democracy as Ambassador to Greece.

    Question.  What are the most pressing human rights issues in 
Greece? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Greece? What do you 
hope to accomplish through these actions?

    Answer. Despite their own financial hardships, the Greek people 
have shown tremendous generosity and compassion toward the hundreds of 
thousands of migrants and refugees who have entered Greece since the 
start of the migration crisis. However, the most significant human 
rights issues in Greece this year were related to the at times 
overcrowded and poor conditions facing the greatly increased numbers of 
migrants and asylum seekers who arrived in the country in an 
unprecedented wave of migration. This included occasional lack of 
sufficient food, potable water, and adequate shelter at some reception 
and registration sites. Other human rights problems reported during the 
year included some limitations on access to the asylum application 
process along with inadequate capacity to provide legal aid and social 
support for asylum seekers and refugees.
    More than one million migrants and refugees have entered Greece 
since January 2015, and more than 57,000 migrants and refugees remain 
in Greece. The Greek government has taken important steps to respond to 
the needs of the migrant and refugee population, including access to 
services and asylum protection; however, demand has overwhelmed Greek 
capacity. The Greek government is working to increase resources to 
process asylum claims more quickly. EU member states have also provided 
much-needed assistance by deploying border guards, asylum experts, and 
interpreters to facilitate the processing of asylum claims. The March 
18 EU-Turkey agreement on migration set out specific action items to 
discourage the use of smuggling networks and facilitate returns of 
irregular migrants from the EU to Turkey. A vital part of the March 18 
EU-Turkey statement is safeguarding that those in need of international 
protection receive it. To that end, we press Greece, EU member states, 
and Turkey to ensure access to asylum procedures. We are also 
encouraged by language in the Joint Action Plan affirming that all 
refugees deserve access to protection and that the agreement will be 
implemented in full accordance with EU and international law.
    If confirmed, promoting human rights in Greece will be one of my 
top priorities. The State Department has been engaged at all levels of 
the Greek government, with international partners such as UNHCR, and 
with other EU member states to work toward this comprehensive and 
coordinated approach to managing the migration and refugee crisis in 
Europe. This includes the nearly $44 million in humanitarian aid the 
State Department has provided throughout Europe in FY 2016. If 
confirmed, I will look to continue and bolster this excellent 
cooperation. By doing so, I hope we can help migrants and refugees in 
Greece not only receive international protection in the short term, but 
also help improve their access to the work and educational 
opportunities that are vital over the long term.Questions for the 
Record Submitted to

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Greece in advancing 
human rights, civil society and democracy in general?

    Answer. Perhaps the greatest obstacle to addressing the human 
rights challenges posed by the migration and refugee crisis in Greece 
is the sheer scope and scale of the problem. More than one million 
migrants and refugees entered Greece between January 2015 and March 
2016, and more than 57,000 migrants and refugees currently remain in 
Greece. Approximately 79 percent of those who have arrived after the 
EU-Turkey agreement took effect on March 20 have applied for asylum. 
Processing the significant influx of new asylum cases would be a 
challenge for any government, and Greek asylum officers are reportedly 
working around the clock to process the extraordinary caseload. EU 
member states have pledged support but they, too, have limited numbers 
of asylum experts, interpreters, and other specialists they can 
contribute.
    The numbers of new arrivals have dropped precipitously since March 
20, and in May were less than 50 per day compared with a daily average 
of 870 in the first half of March. This means the process is slightly 
more manageable than it was earlier this year, which has given the 
Greek government some space to improve the quality of accommodation 
facilities throughout the country. Greece has made efforts to relocate 
migrants and refugees from informal sites to established facilities, is 
constructing new facilities, and is also working to upgrade existing 
facilities that do not meet international standards.If confirmed, I 
will work to promote improved conditions for migrants and refugees in 
Greece and seek opportunities where we can encourage better 
coordination and cooperation with international organizations such as 
UNHCR. Despite years of budget cuts, the Greek government has 
demonstrated time and again its tremendous compassion and willingness 
to seek solutions to tough problems, and I believe we will be able to 
make progress on human rights concerns.

    Question.  Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Greece? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights, civil society, 
and other NGOs both in the United States and in Greece if confirmed as 
the next Ambassador to Greece. Throughout my career I have made it a 
priority to engage with civil society organizations on a range of 
issues, and my time in Greece will be no different. The U.S. Embassy in 
Athens has benefitted from tremendous partnerships with a range of 
Greek NGO actors, including many that work with minority and 
underrepresented populations. If confirmed, I look forward to 
continuing to promote the important work they do to advocate for the 
rights of minority groups including religious minorities, women, abused 
or neglected children, and the LGBTI population.
    I am also committed to upholding the Leahy Law and ensuring that 
all recipients of U.S. assistance have been properly vetted according 
to the law. Greece has an excellent record as confirmed by previous 
vetting. Specific to the vetting of military personnel, the Office of 
Defense Cooperation in Athens frequently visits training sites and has 
observed that soldiers are properly trained on human rights interests. 
If confirmed, I will ensure we have the proper procedures in place at 
U.S. Embassy Athens to vet all training candidates and encourage 
continued site visits to report on observations from the field. If 
human rights concerns arise, I will act immediately to 
respond.Questions for the Record Submitted to

    Question.  Will you and your embassy team actively engage with 
Greece to address cases of key political prisoners or persons otherwise 
unjustly targeted by Greece?

    Answer. If confirmed, I will seek to promote values of freedom of 
speech and assembly, which are actively defended in Greece. There were 
no reports of political prisoners or detainees in Greece last year, and 
such targeting by the Greek government is not a pervasive problem. 
There have been some reports of the prosecution of public officials for 
political purposes and the harassment of journalists; however, there 
were no reports of censorship or content restrictions in 2015. If 
confirmed, I will ensure the embassy team continues to monitor 
political persecution closely and bring to my attention any cases of 
unjust targeting so that we may respond accordingly.

    Question.  Will you engage with Greece on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Engaging with the Greek government on matters of human 
rights, civil rights, and governance will be a top priority should I be 
confirmed. I also know that these are priorities for Greece, and that 
we have a willing partner in promoting our shared values of respect and 
tolerance. Greece has taken important steps this past year to prevent 
discrimination, including the passage of a law adopted last December to 
establish a National Council against Racism and Xenophobia. This law 
also stiffened penalties for individuals convicted of crimes motivated 
on these grounds. Also in December, the Greek government adopted 
legislation providing same-sex cohabitating couples the right to enter 
into civil union partnerships. And in October, the Greek government 
hosted a conference on religious tolerance and cultural pluralism in 
the Middle East, a clear effort on behalf of the foreign ministry to 
promote a culture of tolerance and acceptance. These examples all 
illustrate concrete actions Greece has taken to promote human rights, 
civil rights, and governance. If confirmed, I will commit to furthering 
these efforts through our ongoing bilateral engagements.

    Question.  Russian President Putin was in Greece last month to meet 
with Prime Minister Tsipras. Reports surfaced that Putin offered to 
increase investment in the country if Greece were to vote against 
extending the EU's Russia sanctions. PM Tsipras has already repeatedly 
voiced reservations about the sanctions. How would you characterize 
Greece's relations with Russia? Would PM Tsipras break ranks with the 
EU and dissent to renewing sanctions against Russia? As U.S. Ambassador 
to Greece, how would you work to counter Russian influence there?

    Answer. Greece has a long history of close ties with Russia, in 
part due to their affinity as predominately Orthodox nations. The two 
countries maintain regular high-level engagement. Russian President 
Putin visited Greece in May to celebrate the Greek-Russian Year of 
Friendship and 1,000 years of Russian Orthodoxy in Greece. Putin's 
visit resulted in several bilateral agreements for cooperation in the 
fields of tourism, transport, renewable energy, shipbuilding, mining, 
petroleum trading, and pharmaceuticals, reflecting the two countries' 
close work on developing commercial and tourism ties.
    Notwithstanding the ties between Greece and Russia, we have 
observed Greece definitively turn toward the West on security and 
energy issues, most recently demonstrated by the groundbreaking of the 
Trans-Adriatic Pipeline (TAP) in Greece, which will bring gas from 
Azerbaijan to other parts of Europe. The Tsipras government has 
stressed the importance it places on Western investment at the same 
time it seeks investment from other countries such as Russia and China. 
While Russia has shown interest in expanding its energy and economic 
ties to Greece and its military presence in the Mediterranean, the 
Greek government has made important strategic decisions to support 
energy projects such as TAP, which will reduce European dependence on 
Russian gas. Nevertheless, the Greek government has continued to signal 
support for a ``multi-dimensional'' energy policy that includes the 
construction of new routes through Greece for Russian gas. It is 
important that we remain vigilant about Russian avenues to exercise 
influence and project power in the region.
    Despite concerns over the economic impact of sanctions on Greece's 
fragile economy, particularly its agricultural and tourism sectors, 
Greece has never broken EU consensus on Russian sanctions over Ukraine, 
and has repeatedly confirmed its support for Ukraine and its concern 
for the more than 150,000 Ukrainian citizens of ethnic Greek origin 
residing near Mariupol. We have no reason to believe that Greece will 
diverge from its position in support of EU consensus. Having spent the 
past three years working to counter Russian aggression in Kyiv, I am 
intimately familiar with the strategies and tactics used by Russia to 
wield influence, including Russian use of misinformation as a weapon. 
The best response to countering Russian influence is to tell the truth. 
If confirmed, I will continue to speak out and ensure the Greek people 
are hearing the truth about both Russian and U.S. activities in the 
region.

    Question.  According to the UN, there are now more than 56,000 
refugees and migrants in Greece, many living in very poor conditions, 
including around 8,000 who have essentially become stranded on Greek 
islands. At the same time, the Norwegian Refugee Council decided to 
suspend its programs for Syrian refugees on the Greek island of Chios 
due to the institution of ``detention-like conditions'' since the EU-
Turkey agreement was signed. The medical aid organization Doctors 
Without Borders announced that it would no longer accept funding from 
EU institutions and EU member states in protest over the conditions 
that have been created by EU-Turkey agreement.

  <diamond> How is the U.S. supporting Greece's efforts to manage the 
        refugee and migrant flow and to fairly and effectively cope 
        with asylum claims? Is the condition of Greek holding and 
        processing facilities an issue that has been raised by the 
        Embassy? At what level?
  <diamond> What U.S. assistance and/or assets are being utilized 
        bilaterally in this regard?
  <diamond> What more can the United States do, and what plans are in 
        place, for the United States to help improve the protection of 
        refugees and asylum seekers and humanitarian conditions in 
        Greece?

    Answer. The Department of State's Bureau of Population, Refugees, 
and Migration (PRM) has contributed nearly $44 million to the U.N. High 
Commissioner on Refugees (UNHCR) to support provision of emergency 
assistance throughout Europe, including Greece. Of this, $2 million 
supports the International Federation for the Red Cross/Red Crescent in 
Greece, and $500,000 is for the U.N. Population Fund activities in 
Greece to prevent and respond to gender-based violence. In addition, we 
have provided small grants to organizations such as Doctors of the 
World and local Greek NGOs working with migrants and refugees in 
Greece.
    The Department of Defense donated essential humanitarian supplies 
for migrants and refugees in Greece on behalf of the U.S. government in 
April 2016. EUCOM provided $150,000 worth of beds, sleeping bags, 
blankets, pillows, diapers, and other necessities to the Hellenic 
Republic First Reception Service for distribution at accommodation 
sites across Greece. Additional excess materials are being shipped from 
EUCOM logistical sites, specifically Camp Darby in Pisa, Italy.
    In April, a team of public health experts from the Centers for 
Disease Control (CDC) visited Greece to conduct a rapid needs 
assessment of the current public health situation. The CDC's top 
recommendation out of that trip was to start a vaccination campaign--
something the Greek government has already begun following the visit. 
If confirmed, I will continue working closely with the Greek 
authorities on what more we can do.
    A U.S. Naval vessel is also now participating in the NATO Aegean 
activity to help stem the flow of ``illegal trafficking and illegal 
migration'' by working with our Allies to provide reconnaissance, 
surveillance, and monitoring information about migrant vessels to the 
Greek and Turkish Coast Guards, as well as the EU's FRONTEX border 
agency. We will continue to look for ways to do more. If confirmed, I 
will seek ways to bolster our assistance.
    On the issue of registration facilities on the Aegean islands, we 
are also concerned about the welfare of migrants and refugees and want 
to be sure that they have access to asylum screening and are treated 
with dignity, and that their rights are respected. In practical terms, 
Greece has followed its own legal requirements not to detain migrants 
arriving at hotspots on the Aegean islands for more than 25 days. Greek 
authorities often detain migrants for fewer than 25 days, as asylum 
seekers generally are allowed to leave the hotspot registration 
facilities once all identification and registration procedures are 
completed. However, under the terms of the March 18 EU-Turkey 
agreement, migrants are not permitted to leave the island, pending the 
examination of their asylum applications. Greece has also made efforts 
to identify vulnerable individuals such as minors and pregnant women to 
ensure they receive appropriate care and assistance. If confirmed, I 
will continue to support Greece's efforts to improve these processes.
    We laud the work of organizations such as Doctors Without Borders, 
and their dedication to helping those in need. We also share the desire 
to eliminate the deadly smuggling of desperate people across the Aegean 
Sea. Far too many innocent lives have been lost to line the pockets of 
criminals who profit from the desperation of vulnerable people. We 
expect all nations to uphold their international obligations and to not 
send individuals with legitimate protection needs back to their 
countries of origin, and to conduct any returns of individuals who do 
not qualify for international protection safely, humanely and with 
dignity. If confirmed, I will work with my colleagues to urge the 
European Union, its member states--including Greece--and Turkey to 
continue to work together to address concerns raised by humanitarian 
groups to ensure proper refugee protection safeguards consistent with 
international obligations and commitments. We also urge the European 
Union and its member states to swiftly implement assistance measures to 
which member states have already agreed. This includes the relocation 
of asylum-seekers already in frontline European States, resettling more 
refugees from first countries of asylum into Europe, and providing 
increased humanitarian assistance to refugees in Turkey.
    Both the Department and the U.S. Embassy in Athens regularly engage 
with the Greek government and international and non-profit 
organizations at all levels on issues related to migration, including 
the welfare of migrants and refugees. If confirmed, I commit to doing 
the same to ensure the dignity and rights of all individuals are 
upheld.
    If confirmed, I will also continue to seek ways to improve the 
protection of refugees and asylum seekers and humanitarian conditions 
in Greece and around the world. President Obama is hosting a Leaders' 
Summit on Refugees during UNGA 71 high-level week to focus on this 
global refugee crisis. The United States is organizing this Summit with 
a global approach because we believe that Greece and other European 
countries should not have to shoulder the burden of this crisis alone. 
The United States is undertaking a vigorous, sustained diplomatic 
effort over the coming months to drive new and significant 
contributions from a broader universe of countries in three critical 
areas: 1) increased funding for U.N. humanitarian agencies and appeals, 
2) greater opportunities for resettlement and other legal channels for 
humanitarian admissions, 3) facilitating refugee inclusion and self-
reliance through opportunities for education and lawful employment. We 
believe this summit will mobilize significant new resources to address 
the challenges of migration.

                               __________
                ambassador-designate payatt's responses 
                    to questions from senator rubio

    Question.  Ambassador Pyatt, thank you for your service as 
Ambassador to Ukraine during a difficult time in Ukraine's history. Can 
you tell us whether the Ukrainian Government's perceptions of our 
commitment to Ukraine's security have suffered at all due to our 
refusal to provide the Ukrainian Government with the lethal assistance 
it has repeatedly requested, yes or no?

    Answer. Ukraine is appreciative of our assistance and has made 
significant progress toward increasing its defense capacity and 
reforming its defense sector, thanks in part to our security 
assistance. In response to the crisis, we have committed over $600 
million in training and equipment to help Ukraine's forces enhance 
their capabilities to monitor and secure their borders, operate more 
safely and effectively, and defend Ukraine's sovereignty and 
territorial integrity. Our security assistance has saved lives while 
helping to build Ukraine's long-term defense capacity.
    Through the Joint Multi-National Training Group Ukraine, we are 
building Ukraine's institutional training capacity, reforming its 
doctrine, improving command and control, and hardening its defenses. 
The United States and Allies have trained over 1,700 Ukrainian 
Conventional force and National Guard personnel. We have trained 120 
Special Operations Forces (SOF), who are now re-deployed in operations. 
We are currently training an additional conventional battalion of 630 
personnel.
    We have provided counter-artillery and counter-mortar radars, over 
3,000 secure radios, 130 Humvees, and over 100 armored civilian SUVs, a 
mobile field clinic, and tens of thousands of medical kits and other 
life-saving equipment. Our radars have helped Ukrainian forces confirm 
that the Russia-led separatists are firing from urban areas in blatant 
disregard for civilians. The Ukrainians, showing restraint aided by our 
radars, have exercised extreme care with their retaliatory fire in an 
effort to limit civilian casualties.
    Ukraine has been grateful for the assistance we have provided and 
taken many steps to implement changes to its defense structure at the 
recommendation of the United States and international advisers. Most 
recently, President Poroshenko signed the Strategic Defense Bulletin, a 
landmark document which will guide an overhaul of Ukraine's defense 
institutions, marking a transition to a western interoperable, 
civilian-controlled, and accountable defense establishment.
    We appreciate Congressional support for Ukraine, and we will 
continue to work closely with Ukraine to identify requirements for 
security assistance.
    Ukrainians often tell me they feel they have no stronger partner 
than the United States; among the many memories ?I will carry from my 
service here, one of the most cherished is of the hundreds of random 
Ukrainians who have come up to me on the street to say thank you for 
what the American people have done to help Ukraine defend its sovereign 
choice for the future.

    Question.  Greece is a route for individuals trying to reach Iraq 
and Syria as well as a transit point for individuals returning home 
from the battlefield. The leader of the November 13 Paris attacks used 
Greece several times to enter Europe and two of the suicide bombers at 
the Stade de France passed through Greece as Syrian refugees. Are we 
confident that Greek authorities can accurately screen for dangerous 
actors with a potentially overwhelming number of refugees?

    Answer. Greece became the main entry point on an illegal migration 
route into the EU last year due to its long coast line and proximity to 
the Middle East. Greek authorities share our concern that terrorists--
including potentially foreign terrorist fighters--could use this 
migration route to transit Europe. With that said, we have a long 
history of law enforcement and anti-terrorism cooperation with Greece 
and are working closely with the Greek government to combat terrorism 
in all its forms.
    While there are several areas where Greece could further improve 
border security efforts, Greek authorities have demonstrated a strong 
commitment to improving screening of refugees and migrants and have 
already taken significant strides to do so. For example, as of 
September 2015, the Greek government registered and screened against EU 
and international databases only eight percent of migrants and refugees 
entering Greece. By February, however, that number had increased to 80 
percent and is now nearly 100 percent. Greece has also demonstrated 
success in investigating and prosecuting human smugglers.
    Our counterterrorism partnership is strong, and we have ongoing 
bilateral efforts with Greece to improve border security. In the wake 
of the November terrorist attacks in Paris, the White House announced 
on November 30, 2015, that the United States was prepared to deploy 
teams of technical experts to help some European countries, if desired, 
enhance border security, information sharing, and other 
counterterrorism capabilities to counter the threat from foreign 
terrorist fighters. In February, an interagency team of U.S. subject 
matter experts visited Athens to consult on shared counterterrorism 
priorities and work with Greek officials to find ways to improve border 
security, building on existing partnerships between our two countries. 
Follow-up dialogue and specialized training efforts continue as a 
result of this engagement, including terrorism finance training and 
training on methods to improve border and aviation security and 
identify potential threats. Together, we are now working cooperatively 
to protect against vulnerabilities from foreign fighters and other 
security threats.
    We are also currently working with DHS to conduct regional training 
in Greece later this year. The program will include other countries 
such as Turkey, Serbia, Macedonia, and Croatia, and will provide 
training on migrant screening and migrant smuggling investigation. In 
addition, we are hoping to support regional training to combat migrant-
smuggling by sea, to assist in the development of national training 
curricula and train-the-trainer workshops, and to support other 
regional capacity-building that may be implemented by international 
organizations such as INTERPOL.
    The Department of Defense is also working to help Greece build its 
capabilities to conduct counterterrorism operations by providing 
approximately $4.5 million in 2282 funding to support a specialized 
unit of the Hellenic Coast Guard. This agency is also the lead Greek 
entity focused on counter-smuggling operations.
    Finally, our coordination efforts with Greece to upgrade its border 
security capabilities under the Visa Waiver Program (VWP) will also 
bolster Greece's ability to detect terrorists and share terrorist and 
law enforcement information with the United States and European 
partners. U.S. law requires DHS to conduct periodic re-evaluation of 
VWP countries. Greece underwent a thorough re-evaluation in 2015. This 
review evaluated the effect that the country's continued designation 
has on the law enforcement, immigration enforcement, and security 
interests of the United States, which includes a thorough assessment of 
counterterrorism and terrorism threats within the country. DHS, in 
consultation with State, determined that Greece's participation in VWP 
would not compromise the law enforcement, immigration, and security 
interests of the United States. Currently, DHS and the Hellenic 
National Police are actively working to develop a partnership to 
bolster Greece's vetting of refugees to further enhance the screening 
process. DHS continues to monitor Greece, as well as other program 
countries.
    The Greek government has made tremendous efforts to improve border 
security, and we are confident of Greece's commitment to protecting 
against terrorists transiting its borders. If confirmed, assuring the 
safety and security of American citizens will be my top priority and I 
will make every effort to ensure our bilateral cooperation with Greece 
on border security and counterterrorism is as productive as possible.

                               __________
                ambassador-designate payatt's responses 
                    to questions from senator perdue

    Question. Mr. Pyatt, Greece has had seven different governments 
since 2009, with three having collapsed. Although Prime Minister 
Tsipras was reelected decisively in September of 2015, the Greek 
Parliament remains fragile and fragmented. As the U.S. Ambassador, how 
do you plan to work with different factions in Parliament?

    Answer. Greece's political environment has evolved significantly 
since 2009 in large part due to the economic crisis and resulting 
political challenges faced by the Greek government. After several 
decades of one-party governments, Greece has seen a shift to two or 
three-party coalition governments and increased volatility in political 
leadership.
    If confirmed, I will seek to work with all parties toward the 
common goal of achieving long-term economic and political stability for 
Greece. I will work with political leaders across the spectrum to get a 
full understanding of the issues and use this broad base to shape our 
bilateral policies with Greece. Most importantly, I will work with 
whichever political party or coalition government is in office to 
ensure our strong bilateral relationship continues regardless of 
political persuasion.

    Question. In your testimony, you say that the success of U.S. 
policy in Greece hinges on its partnership with the EU. However, many 
speculate that if Greece is not able to live up to its promises and 
obligations under the third financial assistance package agreed to in 
August 2015, that the EU may consider kicking Greece out of the 
Eurozone. What impact would that have on U.S. interests in Greece? In 
the region? As Ambassador, how would you assist Greece in staying on 
track with these reforms?

    Answer. The United States has a strong partnership with Greece, and 
the administration has said consistently that Greece belongs within 
Europe's monetary union as Athens implements reforms to restore 
financial stability and economic competitiveness. European leaders have 
repeatedly said they will take whatever steps are necessary to maintain 
the integrity of monetary union and safeguard financial stability in 
the euro area. European leaders have also made clear that they want 
Greece to remain in the euro area, while respecting its commitments to 
reform. We remain confident in euro area member states' efforts to 
implement economic and financial sector reforms and move towards 
greater integration, and we will continue to engage closely with 
European partners on integration efforts.
    We have followed developments closely throughout the duration of 
Greece's bailout program and will continue to do so. We remain in close 
contact with European leaders and the IMF on the measures necessary to 
secure Greece's economic recovery. We have a great stake in the 
outcome, not just for the sake of our friends and partners in Greece, 
but for the sake of the entire eurozone, the U.S. economy, and the 
world economy. Greece's economic success affects Europe's economy, and 
what happens to Europe's economy is very important to the United 
States. Europe is our largest economic partner and we share close 
financial, trade, and other linkages. A protracted stagnation in Europe 
with weak business and consumer demand adversely affects the U.S. 
economy.
    Greek authorities are making progress on far-reaching reforms, 
including pension reforms, privatization efforts, tax reforms, and 
others. Greece successfully recapitalized its banks at the end of last 
year and has gradually loosened capital controls imposed last summer, 
though some restrictions remain in place. European leaders recognize 
the efforts that Greece has made to date and understand the need to 
continue to provide partnership and support to Greece as its reforms 
continue. Looking forward, Greece must now focus on reform 
implementation. If confirmed, I will urge the Greek government to 
continue taking steps to do so. In return for implementing those 
reforms, it will be important for Greece and its creditors to reach 
agreement on how to ensure debt sustainability over the long term, 
allowing Greece to return to healthy economic growth. If confirmed, 
working toward these goals will be my top economic priority.

    Question.  A large part of stabilizing Greece's economy hinges on 
its ability to keep the flow of migrants to a minimum, making the deal 
struck with Turkey in March of this year immensely important. In your 
opinion, do you think the deal will hold? What events could endanger 
the deal? How do you see this deal fitting into U.S.-Greek relations in 
the coming years?

    Answer. More than one million migrants and refugees entered Greece 
between January 2015 and March 2016, and more than 57,000 migrants and 
refugees currently remain in Greece. Several factors have contributed 
to a decrease in the number of new arrivals of migrants and refugees in 
Greece, including a combination of unilateral border closures 
throughout Europe, NATO presence in the Aegean, and implementation of 
the EU-Turkey Joint Action Plan. Arrivals in May averaged fewer than 50 
per day, compared to an average of 870 daily in the first half of 
March.
    Specifically on the EU-Turkey agreement, we believe that all 
parties are committed to seeing its success and are working toward a 
common goal of stemming the flow of irregular migration while also 
improving legal mechanisms for those who need international protection 
to be able to access it. We expect all nations to uphold their 
international obligations and commitments not to send individuals with 
legitimate protection needs back to their countries of origin, and to 
conduct any returns of individuals who do not qualify for international 
protection safely, humanely, and with dignity.We also urge the European 
Union, its member states, and Turkey to continue to work together to 
swiftly implement assistance measures to which member states have 
already agreed. This includes the relocation of asylum-seekers already 
in frontline European States, resettling more refugees from first 
countries of asylum into Europe, providing increased humanitarian 
assistance to refugees, and deploying asylum experts and interpreters 
to hotspots in Greece and Italy.
    We recognize there are several factors that could ultimately affect 
implementation of the commitments made under the agreement, including 
legislative requirements, resource limitations, and potentially 
shifting political dynamics. However, thus far we have observed the 
parties demonstrate a willingness and effort to uphold their 
commitments. For example, Greece passed legislation on April 1 to 
support implementation of the agreement, EU member states have deployed 
border guards to Greece to provide surge capacity for processing asylum 
claims, and Turkey has received hundreds of migrants returned under the 
deal. These are concrete actions that illustrate the willingness of 
stakeholders to contribute to a comprehensive and coordinated solution.
    We believe the EU-Turkey Joint Action Plan is an important step in 
responding to the unprecedented flow of refugees and migrants in the 
region. The United States has also done what it can to support regional 
partners in addressing the challenge. Total U.S. humanitarian 
assistance contributions worldwide were more than $6 billion last year, 
including funding from the State Department's Bureau of Population, 
Refugees, and Migration and the U. S. Agency for International 
Development. Of this, nearly $44 million in humanitarian aid in FY 2016 
supported activities throughout Europe.
    In Greece, we have worked with our Department of Defense colleagues 
to provide humanitarian assistance items such as beds, blankets, and 
sanitary items to help equip accommodation facilities. Additionally, 
our Centers for Disease Control and Prevention are working in close 
concert with the Greek public health authorities as they seek to ensure 
the public health and that of the migrant population is effectively 
safeguarded. We have worked closely with the Greek government, European 
partners, and international organizations such as UNHCR to closely 
coordinate these efforts so that they may be complementary but not 
duplicative. If confirmed, I will seek to continue this robust 
cooperation.

    Question.  Despite the deal to stem the flow of migrants, Greece's 
relations with Turkey have been strained for some time. Does this 
tension affect U.S. interests in the region? If so how? If confirmed, 
how would you go about providing assistance or advice to the Greek 
government in this matter?

    Answer. We are encouraged by regular, high-level bilateral 
engagements between Greece and Turkey, and Greece has acknowledged 
publicly that relations with Turkey have improved in recent years. 
Greek Prime Minister Tsipras visited Turkey three times in the past 
year and regularly engages his Turkish counterparts on key issues such 
as Cyprus, refugees and migration, and increasing economic ties. Greece 
and Turkey held their most recent meeting of the High Level Cooperation 
Council (HLCC) in Izmir in March. At this summit, Prime Minister 
Tsipras and then-Prime Minister Davutoglu reaffirmed the need for 
bilateral cooperation on the refugee and migration crisis and reached a 
bilateral deal for accelerated readmission of migrants from Greece to 
Turkey.
    We believe these visits and joint efforts to address issues of 
mutual concern--such as refugees and migration--indicate the potential 
for bilateral relations between Greece and Turkey to continue to 
improve. We recognize that a tension-free Aegean can be achieved only 
through constructive engagement between Greece and Turkey and applaud 
the efforts of the Greek and Turkish governments to improve their 
relationship. We have conveyed to both Greece and Turkey our strong 
support for a stable Aegean, which is in their national interests as 
well. Greece and Turkey have long-established diplomatic channels for 
addressing tensions in the region, and all NATO members, including 
Greece and Turkey, are committed to working out any differences 
peacefully and through dialogue. That is in both countries' best 
interests, and in the best interests of the United States, as well. If 
confirmed, I will encourage this dialogue and positive steps by Greece 
and Turkey to resolve their differences bilaterally.

    Question.  Prior to being nominated for this ambassadorial 
position, you served as the U.S. Ambassador to Ukraine. What lessons 
learned from your time in Ukraine do you feel will be applicable to the 
post in Greece, should you be confirmed?

    Answer. My time as U.S. Ambassador to Ukraine taught me the 
importance of empowering a dedicated interagency team and molding a 
common vision for the U.S. mission. With perseverance and hard work, 
the U.S. interagency team in Ukraine was able to work effectively 
together, allowing us to achieve our mission goals. If confirmed, I 
will apply these leadership skills to help the U.S. mission in Greece 
move forward on our policy priorities and pursue a common vision in our 
relations with Greece.
    I also learned in Ukraine how much of an impact on-the-ground, 
people-to-people diplomacy can make. I made it a priority to engage 
directly with host-country citizens on a daily basis, which gave our 
mission a much clearer understanding of what was going on in the 
country--and which allowed us to show Ukrainians the everyday, ``real 
people'' face of the United States. Our holiday YouTube videos were a 
perfect example of outreach that set our mission apart from those of 
other countries and left a positive impression among average 
Ukrainians. If confirmed as Ambassador to Greece, I will continue these 
efforts to harness the power of people-to-people diplomacy.
    Finally, I came to appreciate how European finance, businesses, 
politics, and society, are all interconnected--and how they interact 
and evolve at a very rapid pace. As U.S. Ambassador to Ukraine, I 
learned how to think about our policy and mission goals in this 
environment of interconnectedness. From our multilateral coordination 
efforts to stabilize Ukraine's macroeconomic environment to our intense 
support, in coordination with our EU allies, for Ukraine's politically 
brave reforms, our success was contingent upon our ability to adapt to 
this continuously changing European environment. If confirmed, I will 
bring this lesson to bear as U.S. Ambassador to Greece.

                               __________

Responses of Douglas Allan Silliman, Nominated to be Ambassador to the 
      Republic of Iraq to Questions from Members of the Committee

               ambassador-desigate silliman's responses 
                    to questions from senator cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have advocated for human rights and proper labor 
conditions throughout my career. In my most recent assignment as 
Ambassador to Kuwait, I have, with cabinet-level officials, pressed the 
fight against trafficking in persons, advocated for enforcement of fair 
labor standards, encouraged the proper treatment of stateless people 
and raised other human rights issues. The Embassy and I have met with 
critics of the government and worked closely with human rights groups 
and other NGOs.
    One key example of this work is related to trafficking in persons. 
During my tenure as Ambassador in Kuwait, my Embassy and I have 
repeatedly pressed the Kuwaiti government to address its poor record on 
trafficking in persons. In large part, as a result of our intense 
engagement at all levels of government, the Kuwaiti Parliament passed a 
contract labor law regulating and centralizing the recruitment of 
foreign workers (and closing hundreds of small labor recruiting 
agencies that had been the source of trafficking in the past), enacted 
Kuwait's first-ever law regulating household workers, opened a 
government shelter for trafficked women, stood up a new Anti-Human 
Trafficking Department in the Ministry of Interior, established a Human 
Rights Office in the Ministry of Foreign Affairs, and conducted its 
first prosecutions under the two new laws. I am proud of this record of 
accomplishment, working in cooperation with Kuwaiti government 
officials who shared our view on the need to end trafficking in persons 
in Kuwait.

    Question.  What are the most pressing human rights issues in Iraq? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Iraq? What do you hope to 
accomplish through these actions?

    Answer. The most pressing human rights issue in Iraq is, without a 
doubt, Da'esh. This reprehensible organization has committed 
innumerable violations of human rights against Iraq's diverse ethnic 
and religious communities. Foremost among these is the genocide it has 
perpetrated against Iraq's religious minorities, but its list of crimes 
also includes-though is not limited to-executing Muslims of different 
sects, LGBTI individuals, teachers, and aid workers; enslaving women 
and girls and forcing them into marriages; and employing child 
soldiers. If confirmed, I will continue to work with the Iraqi 
government in the fight against Da'esh to ensure that its flagrant and 
disgusting human rights abuses come to an end. Beyond Da'esh, 
trafficking in persons remains a problem in Iraq. Iraq has taken 
considerable steps to combat this-especially in light of the ongoing 
fight against Da'esh-but much remains to be done. If confirmed, I will 
bring the same zeal in fighting this heinous crime as I brought to 
Kuwait, and will engage the Government of Iraq at the highest levels to 
draw greater attention to this issue.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Iraq in advancing 
human rights, civil society and democracy in general?

    Answer. Ultimately, the end of Da'esh and its human rights abuses 
cannot be achieved through military means alone. Defeating Da'esh and 
preventing its return requires the Government of Iraq foster a more 
inclusive political environment, emphasizing a respect for the rights 
of all Iraqis and a commitment to their safety and well-being. To this 
end, we must continue to support security and stabilization programs in 
areas liberated from Da'esh. Advocating for the speedy reintegration of 
minorities into liberated communities will also be critical, as the 
political participation of all of Iraq's communities will be essential 
to building a functioning, representative government and forging a 
stable, unified Iraq. Continuing the battle against trafficking in 
persons is made substantially more difficult by the continuing fight 
against Da'esh and the concurrent need to enhance the capabilities of 
the Iraqi justice system. Ensuring that Iraqi police and prosecutors 
are adequately resourced to recognize, investigate, and prosecute 
trafficking cases will be integral to further advancements in this 
arena.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Iraq? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. If confirmed, meeting with civil society organizations will 
be a priority, both in the United States and in Iraq, especially those 
promoting human rights. Civil society groups provide valuable insight 
into a variety of issues in ways that our embassies simply cannot 
replicate. Working with civil society organizations is essential to 
effectively achieving our goals.
    I will also ensure that the Leahy Law continues to be implemented 
to its fullest extent. Iraq is one of the largest recipients of 
American military assistance, and along with such aid comes the 
responsibility to ensure that U.S. equipment and training are not used 
to commit or support human rights abuses. During my tenure, Embassy 
Baghdad will continue to provide human rights training to the Iraqi 
Armed Forces.

    Question.  Will you and your embassy team actively engage with Iraq 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Iraq?

    Answer. If confirmed, engaging with Iraq to address cases of key 
political prisoners or persons otherwise unjustly targeted will be a 
priority for me. Fair and equal treatment under the law is essential in 
any country, but especially in Iraq given the potential for unfair 
treatment to enflame sectarian tensions during this critical time. In 
the short term, I will advocate for respecting the rights of Internally 
Displaced People fleeing Iraqi cities as they are liberated from 
Da'esh, including the establishment of transparent and humane processes 
for security screening of military-aged males. I will couple this with 
increased emphasis on adherence to Prime Minister Abadi's 2014 
executive order on enforcing the rights of detainees, which prohibits 
arrests made without warrants or outside the confines of the Iraqi 
criminal code.

    Question.  Will you engage with Iraq on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes, the current situation in Iraq requires that our 
bilateral dialogue address these subjects. Widespread respect for human 
rights and the promotion of good governance are essential to fostering 
a post-Da'esh environment in which Iraq's numerous communities flourish 
and prosper. If confirmed, my short-term engagements on these issues 
will include advocating for humane treatment of those fleeing the 
fighting, seeking accountability for security forces that are alleged 
to have committed human rights abuses, and encouraging the government 
to guarantee equal protection and access to services for all of its 
citizens, regardless of their ethnicity or religion.

    Question.  When Secretary Kerry announced that ISIL had committed 
genocide against Yezidis and Christians, he committed the U.S. to 
supporting efforts to collect, document, and analyze evidence as well 
as efforts to hold perpetrators accountable. What specific actions has 
the State Department taken since March in that regard and what more 
will you do as Ambassador to ensure ISIL perpetrators are prosecuted?

    Answer. The Department's policy has not changed in light of the 
Secretary's statement, which reconfirmed the direction of our policy. 
We are undertaking a number of efforts to promote accountability for 
Da'esh's depraved acts and to secure the peace, good governance, and 
respect for human rights that Iraqi citizens deserve. Our Bureau of 
Democracy, Human Rights, and Labor (DRL) is funding a $3 million 
program that has begun securing mass grave sites around Mount Sinjar, 
and is providing technical training in northern Iraq to Kurdish 
Regional Government (KRG) staff on mass grave exhumation. Our partner 
NGOs will also provide analysis support once evidence is collected.
    Another project we are funding collects narratives from Iraqi 
citizens that may be used in a variety of transitional justice 
processes. Further, we have responded, and will continue to respond, 
with emergency and other programmatic assistance, with military force 
to degrade and ultimately defeat Da'esh, and by taking active measures 
to address atrocities in Iraq. We have also provided humanitarian aid 
to support survivors of the conflict, including survivors of atrocities 
perpetrated by Da'esh.
    The U.S. government is also working with the Government of Iraq 
(GOI) to put in place strong governance, human rights protections, and 
security structures so that Da'esh and similar groups cannot take hold 
in the region again. If confirmed, I will communicate to the GOI and 
KRG that we are closely following the progress of their investigations 
and prosecutions and encourage them to continue such work in a credible 
way that meets due process standards. Ending impunity for crimes and 
providing justice to survivors is an important part of long term 
stability and reconciliation, and assists in creating the conditions on 
the ground in which minorities will feel more secure in returning to 
their homes. I will also support implementation of additional State 
Department programming focused on criminal accountability and broader 
transitional justice, and seek to work in tandem with the justice 
efforts of our Coalition partners.

    Question.  In your testimony, you discussed justice for Sunnis who 
are alleged victims of atrocities at the hands of Shia militia, and 
noted that Prime Minister Abadi has committed to setting up a 
commission to investigate these allegations. Given these crimes and 
those of ISIL, does Iraq have the investigative and judicial capacity 
to take this on? What is your assessment and what specific work will 
you do with the government to ensure they have the capacity and 
technical skills to investigate and prosecute these complex crimes?

    Answer. The Government of Iraq has shown its willingness to 
investigate and prosecute captured Da'esh fighters and members of the 
Popular Mobilization Forces (PMF) accused of crimes. Prime Minister 
Abadi's recent investigations into PMF abuses have resulted in the 
arrest of several PMF militiamen who are expected to face trial in the 
near future. The Kurdistan Regional Government is in the process of 
amending its criminal code to give it the ability to prosecute 
perpetrators of genocide within the Iraqi Kurdistan Region, and 
legislation is currently before the Kurdish parliament to create a 
mixed court system consisting of Kurdish and international lawyers to 
carry out these prosecutions. While high-level members of Da'esh could 
under certain circumstances be prosecuted in international 
jurisdictions for their atrocities, it will likely be the national 
court systems in Iraq that try the vast majority of Da'esh's 
perpetrators. We have heard concerns related to detention of suspects, 
as well as questions about provision of due process at trial. We take 
these reports seriously, and will look into them and work to support 
the Government of Iraq (GOI) in carrying out fair and credible justice 
processes. As areas become liberated, the out-flow of thousands of 
people will naturally create a strain on the capacity of the Iraqi 
justice system as it strives to ensure that the rights of innocent 
civilians, particularly Sunnis, are respected, while at the same time 
identifying potential perpetrators of atrocities. If confirmed, I will 
urge the Government of Iraq to continue to improve its provincial and 
national criminal justice institutions and investigative capacity, and 
make every effort to bring the resources of the United States 
government to bear in this endeavor.

                               __________
               ambassador-designate silliman's responses 
                    to questions from senator perdue

    Question.  As you know, Iraq faces significant challenges in 
recovering its economy as it fights to defeat ISIS and build a cohesive 
civil society. One bright spot for Iraq, however, is that oil exports, 
which provide roughly 90% of public sector revenue in Iraq, rose in 
2016 to 4.5 million barrels per day. Domestic oil production also rose 
in 2016 to 3.8 million barrels per day. In your opinion, how can the 
U.S. assist the Iraqi government in continuing to foster this growth? 
What steps would you take as ambassador to assist with growth in the 
oil sector?

    Answer. We are encouraged by Iraq's continued growth in oil 
production and exports, which is an outcome of the open and competitive 
bid rounds in 2009. If confirmed, I will continue to work with the 
central government in Baghdad and the Kurdistan Regional Government 
(KRG) on confidence-building measures, particularly in resolving oil 
and gas disputes, pushing the Iraqis to implement their IMF and World 
Bank programs, and supporting the ``debottlenecking'' of Iraq's 
southern oil infrastructure.
    Predictions of low oil prices over the medium term mean that each 
barrel of oil exported is likely to continue earning lower prices than 
in recent years, making it crucial that Iraq maintain and, ideally, 
increase production. The State Department has co-led energy discussions 
with the Iraqi government to ``debottleneck'' oil infrastructure since 
2012. Based on these discussions, the Iraqi government has contracted 
with the Department of Energy to focus its national labs' expert staff 
on identifying vulnerabilities in Iraq's oil infrastructure, resulting 
in detailed recommendations on how to make the infrastructure more 
resilient to threats. In addition, a USAID program seeks to increase 
exports by removing bottlenecks that limit the amount of oil that can 
be exported and enhancing the resilience of Iraq's oil infrastructure 
to maximize the number of days Iraq's export facilities are up and 
running.
    If confirmed, I will continue to work with the central government 
in Baghdad and the Kurdistan Regional Government (KRG) on confidence-
building measures to maximize cooperation between the two entities. 
Only through cooperation will the KRG and the government in Baghdad 
receive the full benefit of the oil they produce, as well as attract 
foreign infrastructure investment.
    I will also work with the Iraqis to implement their IMF and World 
Bank programs, which recognize the centrality of oil revenues to the 
Iraqi government's operations. The IMF required the Iraqi government to 
settle its arrears with the international oil companies operating in 
Iraq as a prior action to enter into a Stand-By Arrangement. By 
successfully completing this prior action, the Government of Iraq 
ensured the resumption of infrastructure investments to expand 
production and exports and enhance the resilience of its 
infrastructure. The 2015 World Bank Development Policy Loan provided 
funding to assist the Government of Iraq capture natural gas associated 
with oil production for power generation. The World Bank estimated that 
utilizing gas for power generation instead of petroleum would result in 
an additional $520 billion in revenue by 2035, in addition to reducing 
Iraq's greenhouse gas production.

    Question.  In your testimony, you highlight the importance of the 
Kurdistan Regional Government (KRG) to the Mosul campaign. However, the 
KRG may be mounting a political movement for independence from Iraq. 
How would the KRG's break from Iraq affect the campaign against ISIS? 
How would it affect U.S. interests in Iraq? As ambassador, how would 
you go about advising the Iraqi government on this matter?

    Answer. The U.S. has long supported a unified Iraq as being in the 
best interest of all of Iraq's communities, including the Kurds. If 
confirmed, I will advise the Government of Iraq and Kurdistan Regional 
Government (KRG) that the United States supports a unified, federal, 
democratic, and secure Iraq. Any change to the structure of the Iraqi 
state is, however, an internal matter that must be handled in 
accordance with the Iraqi constitution.
    Coordination between Baghdad and Erbil has proven critical in the 
counter-Da'esh campaign. Baghdad provided the first flights of 
ammunition to the KRG after the fall of Mosul in 2014. Since then, the 
Ministry of Defense has included support for the Kurdish Peshmerga in 
its security assistance plans and budget. Baghdad and Erbil are 
stronger and more effective when they are united and working together. 
If confirmed, I will work to ensure that this cooperation continues.
    Finally, internal Iraqi politics should not significantly change 
the U.S. key interests in Iraq. The U.S. will remain steadfast in its 
support for the people of Iraq in their efforts to defeat Da'esh and 
achieve political and economic reform.

    Question.  There have been several votes in Congress on providing 
direct arms to the KRG instead of through the Government of Iraq. Would 
you support direct arming of the Kurds? Do you see problems with the 
current process for providing arms?

    Answer. Coordinating U.S. military assistance through the central 
government is required by both Iraqi and international law and tangibly 
demonstrates our commitment to a unified, sovereign, and independent 
Iraq. It is also essential to a durable victory over Da'esh. Any call 
for preferred treatment for one region of Iraq strengthens voices that 
have been working against the pragmatic reconciliation policies 
advocated by Prime Minister Abadi, and weakens his ability to hold off 
Shia political forces that want him to take a more divisive line.
    Since Prime Minister Abadi took office, Baghdad has neither 
prevented nor delayed the delivery of equipment to the Ministry of 
Peshmerga in Erbil. On the contrary, it has supported a Coalition 
effort that has provided the Peshmerga with thousands of tons of 
ammunition and equipment cost-free. The Government of Iraq has also 
committed to providing the Peshmerga with at least $200 million of 
support via the FY 2016 Foreign Military Financing loan. We are 
expediting deliveries to Erbil as quickly as our system allows, as we 
are doing with our support to all of Iraq's forces. While aircraft 
carrying weapons and equipment destined for Erbil do stop in Baghdad 
for inspection, this usually adds only a few hours to the transit time.
    Without any special provision of law, we are already able to train 
and equip Iraqi Kurdish forces and have been doing this successfully 
for some time. To date, through U.S. and Coalition donations, we have 
provided the Peshmerga with more than 67 million rounds of rifle 
ammunition; 41,000 grenades; 115,000 mortar rounds; 63,000 anti-tank 
rounds; over 38,000 weapons including rifles, anti-tank systems, and 
heavy caliber machine guns; counter-IED equipment; and more than 150 
vehicles, including ambulances and mine resistant vehicles. Additional 
equipment and ammunition is on the way, including additional protective 
gear for nuclear, biological, and chemical threats. In addition, 
thousands of Peshmerga have already received training at the Build 
Partner Capacity (BPC) sites.
    The FY 2015 Iraq Train and Equip Fund (ITEF) budget included 
funding to train and equip two Peshmerga brigades. This includes dozens 
of mounted machine guns, 1,200 M-16 rifles and their associated 
equipment, as well as protective gear for Peshmerga soldiers. An 
additional $65 million has been provided from ITEF in food, fuel, 
ammunition, and medical supplies with the first food and fuel shipments 
arriving in late April and early May.
    Defense Secretary Carter announced $415 million in additional 
funding for support to the Ministry of Peshmerga in support of the 
fight against Da'esh. This support is for food, fuel, ammunition, and 
stipends for those Peshmerga directly involved in the fight against 
Da'esh.

    Question.  The State Department has noted that only one-third of 
the $861 million Iraq Humanitarian Response Plan has been funded. 
Further, State has recently announced plans to hold a ``pledging 
conference'' along with Canada, Germany, and Japan, in order to raise 
funds for another ``substantial contribution'' to the humanitarian 
effort. The U.S. has already provided about $800 million to Iraqi 
rebuilding efforts since. If confirmed, do you see yourself 
participating in this conference? If so, how would you assist in the 
negotiations with other states, given that the U.S. contribution has 
already been incredibly substantial compared to other coalition states?

    Answer. The dire humanitarian situation in Iraq illustrates the 
critical need for the international community to continue to support 
humanitarian and stabilization efforts. The United States will co-host, 
with Canada, Germany and Japan, a Pledging Conference in July to raise 
additional funds to meet those needs. The United States recognizes the 
overwhelming needs of those displaced from their homes in Iraq and the 
important role our international donor partners play. Informed resource 
planning for humanitarian and stabilization efforts is vital. The 
United States has led-and will continue to lead-the effort to intensify 
international support and donor contributions on humanitarian 
assistance, demining, and the United Nations Development Program's 
(UNDP) Funding Facilities for Immediate Stabilization (FFIS) and 
Expanded Stabilization (FFES). These areas reflect critical assistance 
gaps that must be addressed to bolster effective governance and 
provision of basic services in areas liberated from Da'esh control, as 
well as to provide urgently-needed assistance to conflict-affected 
Iraqis. If confirmed, I will continue to work closely with our partners 
in the Government of Iraq and the international community to further 
Iraq's stability and defeat Da'esh.

    Question.  International humanitarian organizations report that of 
the 3.4 million people displaced in Iraq since 2014, more than half are 
children. As ambassador, how would you work with the Iraqi government 
to provide assistance to ensure these children have some sort of basic 
access to education in order to prevent a generational education gap?

    Answer. The United States is the largest donor of humanitarian 
assistance in Iraq, providing more than $778 million since FY 2014 for 
assistance to Iraqis in need throughout the region. In addition, we 
announced $20 million in new humanitarian assistance for the Iraq 
response on June 21, 2016. Many of our current humanitarian programs 
with UNICEF and non-governmental organizations include educational 
assistance to those displaced, as well as vulnerable host-community 
members. This includes working with local, provincial, and central 
government authorities to ensure that children have access to 
education, either by providing transportation assistance to children 
living too far away from schools to walk, or by working with 
authorities to ensure that displaced children are able to take their 
annual exams so they do not fall behind in school.
    If confirmed, I will work within the State Department and USAID to 
ensure that education remains a priority intervention for the U.S. 
government to help Iraqi children gain proper access to 
education.Questions for the Record Submitted to

                               __________

  Responses of P. Michael McKinley, Nominated to be Ambassador to The 
    Federative Republic of Brazil, to Questions from Members of the 
                               Committee

               ambassador-designate mckinley's responses 
                    to questions from senator cardin

    Question.  Given widespread public sentiment in Brazil about the 
importance of transparency and accountability, what steps would you 
take to show support for these issues?

    Answer. In recent years, we have witnessed Brazil's institutions 
make great strides increasing openness and creating a higher standard 
of accountability. Brazilian police, prosecutors, and courts are 
increasingly investigating corruption and bringing those who violate 
the law to justice.The Brazilian public supports these changes. Surveys 
show nearly 80 percent of Brazilians believe the groundbreaking 
``Operation Car Wash'' anti-corruption investigation should be allowed 
to run its course even if it causes temporary economic pain. Both 
President Rousseff and Acting President Temer have called for anti-
corruption investigations to continue unimpeded.
    If confirmed, I would urge the Brazilian government to continue 
taking steps to strengthen Brazil's independent institutions, preserve 
crucial reforms such as plea bargaining and access to public 
information, and provide the Brazilian people with the transparent, 
accountable governance they deserve. I will consult with civil society 
and business leaders to identify opportunities for the United States 
and Brazil to share best practices in prosecuting official corruption 
and promoting government transparency at the subnational and national 
levels. I will also build upon the Embassy's ongoing efforts to help 
Brazil build its law enforcement capacity through training for police, 
prosecutors, and judges. By doing so, I would show the United States 
supports Brazil's continued progress toward greater transparency and 
accountability.

    Question.  Given our size and synergies, it would seem that the 
U.S.-Brazil economic relationship has not achieved at full potential. 
What obstacles exist to resolving our trade disputes and increasing our 
trade flows? Do Mercosur rules and regulations have an impact on the 
U.S.-Brazil economic relationship? What steps would you take to address 
any distortions or negative impact that Mercosur may have in U.S. 
competitiveness?

    Answer. If confirmed as U.S. Ambassador to Brazil, deepening our 
commercial ties with Brazil would be a key focus of mine. Annual two-
way trade in goods and services between our countries is already 
substantial, having reached $100 billion in recent years, but we can 
increase it even more. If confirmed, I will dedicate my efforts to 
continue to advance our leaders' vision of doubling trade within ten 
years, using such fora as the U.S.-Brazil CEO Forum and Commercial 
Dialogue, and will ensure continuing Embassy support of these strong 
bilateral cooperative mechanisms that work to lower trade barriers and 
spur additional growth in our trade and investment relationship.
    Global supply chains are changing, and new partnerships are being 
formed every day based on the latest trade and investment agreements. 
It is important that Mercosur, and the private sectors within Mercosur 
countries, are not left behind in the new global marketplace. Foreign 
Minister Serra emphasized the importance of Brazil's relationship with 
Argentina in his inaugural speech and his first foreign trip was to 
Argentina. He also discussed the importance of reinvigorating Mercosur, 
including through increased openness, and we welcome similar sentiments 
expressed by the authorities in other members of the trade bloc. We are 
encouraged by the closer ties Mercosur members are building with 
members of the Pacific Alliance. We welcome increased trade and 
investment with Mercosur countries and would like to increase market 
access for U.S. goods and services. We have ongoing substantive 
dialogues on trade and investment issues with each of the original 
Mercosur members. If I am confirmed, I will ensure that we continue to 
seek ways to deepen our engagement with the Mercosur countries.

    Question.  Last year, the Brazilian Congress finally ratified the 
U.S.-Brazil Defense Cooperation Agreement as well as more recently the 
General Security of Military Information Agreement (GSOMIA), which 
allows for greater defense cooperation and sharing of information, 
technology and hardware. How would you build on the progress deepen the 
Defense cooperation between our two countries?

    Answer. U.S.-Brazil defense cooperation is on an upward trajectory, 
and, if I am confirmed, I will seize every opportunity to make it even 
stronger. The Defense Cooperation Agreement (DCA) and the General 
Security of Military Information Agreement (GSOMIA) provide an 
excellent framework for doing so. These agreements are advancing our 
relationship by strengthening our cooperation on research and 
development, technology security, and acquisition. They also promote 
joint exercises and facilitate the sharing of sophisticated 
capabilities and technologies. If confirmed, I will work closely with 
relevant Washington agencies, our Embassy team, and the Brazilian 
government to continue exploring all these issues via bilateral 
mechanisms such as our Political-Military Dialogue, our Bilateral 
Working Group, and our Joint Staff Talks. In terms of security 
assistance, I would support International Military Education and 
Training Funding (IMET) to be used to expose Brazilian military 
officers to U.S. training, doctrine, and values. I would also maintain 
regular conversations with Brazil about how our two countries can help 
build global peacekeeping capacity, particularly in Lusophone Africa.
    If confirmed, I will also focus on promoting robust defense trade 
between the United States and Brazil. From 2013 to 2015, the Government 
of Brazil was our second largest defense trade partner in Latin America 
(after Mexico). During that three-year period, Direct Commercial Sales 
of defense articles and services to Brazil exceeded $1.3 billion. The 
U.S. defense industry continues to have great interest in trade to help 
Brazil modernize its military, enhance its maritime and land border 
control, and improve its emergency response capabilities. If confirmed, 
I will therefore look to support industry efforts to launch a bilateral 
U.S.-Brazil Defense Industry Dialogue to institutionalize engagement 
between the U.S. and Brazilian private sectors.

    Question.  What obstacles exist to the U.S. and Brazil pursuing 
negotiations of a bilateral tax treaty? What steps can the U.S. take to 
encourage Brazil to simplify and address a range of tax issues 
impacting bilateral trade and investment?

    Answer. If confirmed as U.S. Ambassador to Brazil, I would advocate 
for a more ambitious trade and investment relationship with Brazil, 
including on tax issues.In June 2015, the United States welcomed the 
entry into force of the agreement between the United States and Brazil 
to implement the Foreign Account Tax Compliance Act (FATCA). The FATCA 
agreement will improve international tax compliance and combat offshore 
tax evasion by facilitating an annual automatic exchange, on a 
reciprocal basis, of specific account holder information that financial 
institutions in each country will report to their own governments as 
required under local law.
    The United States as well as the both the U.S. and Brazilian 
business communities have long advocated for the conclusion of a 
bilateral tax treaty that would provide meaningful tax benefits to 
cross-border investors, including in the form of significant reductions 
in withholding taxes, the adoption of transfer pricing rules consistent 
with the international standard, and robust rules to facilitate the 
resolution of disputes between the tax authorities. We understand 
progress on many of these issues would first require legislative 
changes in Brazil. If confirmed, I would advocate for concrete progress 
on these tax issues.

    Question.  Brazil has played a limited role in trying to diffuse 
the situation in Venezuela. As Ambassador, how would you work with the 
Brazilian government business leaders, and civil society to engage on 
the current democratic, economic, social and humanitarian crisis 
Venezuela?

    Answer. If confirmed as U.S. Ambassador to Brazil, I would work 
closely with the Brazilian government to promote a more active role in 
calling on the Venezuelan government to engage in meaningful and 
inclusive dialogue with the political opposition and work towards a 
Venezuela that is prosperous, governable, and respects human rights and 
democratic principles.
    If I am confirmed, I will engage with the Brazilian government and 
with Brazilian civil society to convey our concern that the current 
institutional stalemate in Venezuela is preventing the political 
dialogue needed to find solutions that address the challenges 
Venezuela's citizens face, including shortages of food, water, and 
medicine. I will emphasize that Brazil, as the largest democracy in 
Latin America, can play an important role in promoting a democratic and 
inclusive political process in Venezuela. Indeed, Brazil has already 
taken action to promote dialogue among Venezuelan government officials 
and opposition lawmakers. Brazil's decision to co-sponsor Argentina's 
June 1 OAS resolution and the June 15 joint statement on Venezuela by 
Ministers and Heads of Delegation at the OAS General Assembly were 
welcome steps, as was Brazil's offer to donate medicines produced in 
Brazilian public laboratories to international humanitarian 
organizations for distribution to the Venezuelan people.

    Question.  Brazil has established a series of non-trade barriers 
and other temporary subsides that protect certain domestic industries 
from competition and there are a number of WTO cases filed against 
Brazil over discriminatory taxation and charges affecting sectors such 
as automobiles and information and communication technology. How would 
you propose to work with Brazil to level the playing field for U.S. 
companies seeking to export their goods and services to Brazil?

    Answer. If confirmed as U.S. Ambassador to Brazil, I would push to 
promote a level playing field for U.S. businesses and an expanded 
commercial relationship, consistent with our leaders' vision of 
doubling trade within the next decade.
    In his inaugural speech in May, Brazilian Foreign Minister Serra 
said, in the short-term, Brazil should focus on removing non-tariff 
barriers to trade and regulations that obstruct trade. We are working 
with Brazil in those areas, including standards, trade facilitation, 
and innovation, through the Commercial Dialogue process.
    We are also advancing the trade relationship through a number of 
other important dialogues, including the U.S.-Brazil Commission on 
Economic and Trade Relations under the Agreement on Trade and Economic 
Cooperation (ATEC), the U.S.-Brazil CEO Forum, and the U.S.-Brazil 
Consultative Committee on Agriculture. In March of this year, for the 
first-time ever, a meeting of the ATEC was held at the ministerial 
level. Recognizing the importance of the manufacturing sector as a key 
driver of economic growth in both countries, the United States and 
Brazil agreed in principle to establish an ongoing dialogue on policies 
that promote investment in manufacturing during the ATEC meeting.

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, I have taken concrete steps to 
promote democracy and human rights in each of the countries in which I 
have served. As U.S. Deputy Ambassador to Afghanistan and as U.S. 
Ambassador to Afghanistan, I implemented our long-term strategy to help 
Afghans construct a democratic government that respects human rights. 
In those two positions, I oversaw a broad array of U.S. assistance 
programs designed to build the capacity of Afghan security forces and 
civilian institutions, improve the performance of the Afghan justice 
system, and promote economic growth, all in the context of increased 
respect for human rights. More directly, I have personally advocated 
for the extension of services to abused women and children?. I have 
also strongly pushed for measures to address corruption. On rule of 
law, I have secured support for the new Attorney General to allow his 
office to pursue higher profile legal cases. Although much remains to 
be done, as a result of this U.S. government assistance, Afghans have 
made progress toward building a democratic system of governance that is 
credible, transparent and inclusive.
    Earlier, as U.S. Ambassador to Colombia, I led U.S. efforts to 
support Colombia as it transitioned from conflict towards peace. We 
worked closely with the Colombian government to promote respect for 
human rights and the rule of law and protect vulnerable citizens. I 
also focused directly on programs to provide services to victims of 
gender-based violence in areas affected by conflict; on the security of 
journalists facing death threats; on the right of trade union workers; 
on the promotion of LGBT rights; and on the importance of a more 
inclusive approach to the Afro-Colombian community. Colombia is now 
working toward a historic final peace accord, and I am confident this 
agreement will lead to continued progress on human rights issues.
    Similarly, as U.S. Ambassador to Peru, I implemented bilateral 
programs to support the Peruvian government's anti-narcotics and 
alternative development efforts, improve governance, and advance social 
and economic inclusion for all Peruvians. As Deputy Assistant Secretary 
in the State Department's Bureau of Population, Refugees, and 
Migration, I played a key role in formulating U.S. policies to promote 
orderly and humane international migration and to provide protection 
and assistance to refugees, stateless persons, conflict victims and 
vulnerable migrants. I also personally successfully advocated for the 
resumption of the U.S. government resettlement program that had been 
suspended after the September 11, 2001, attacks and worked to include 
the security enhancements needed to protect the program and allow us to 
resume resettling genuine refugees in our country.

    Question.  What are the most pressing human rights issues in 
Brazil? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Brazil? What do you 
hope to accomplish through these actions?

    Answer. The Brazilian government takes seriously its obligation to 
protect human rights and, although Brazil's constitution and legal 
framework provide a robust structure for doing so, some areas of 
concern persist. As the Department of State has reported, Brazilian 
state police have committed unlawful killings, and conditions in some 
Brazilian prisons are poor and at times life-threatening. Other 
problems include corruption, sex trafficking, forced labor, as well as 
violence and discrimination against women, children, people of African 
descent, and other vulnerable populations.
    Brazil has made great strides on many of these fronts in recent 
years, but more needs to be done. If confirmed, I will continue to 
express our concerns regarding human rights abuses and urge the 
Brazilian government to continue making progress on these important 
issues. For example, some Brazilian authorities have expressed interest 
in learning from the U.S. experience with managing a large prison 
population in a way that respects the human rights of prisoners. If 
confirmed, I will continue to encourage dialogue between U.S. and 
Brazilian counterparts to exchange best practices with respect to 
prison management. In this way, I would hope to advance Brazilian 
authorities' efforts to ensure prisons and detention centers are safe 
and humane for all inmates.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Brazil in advancing 
human rights, civil society and democracy in general?

    Answer. Brazilian law includes ample protections of human rights, 
but implementation continues to be inconsistent. Authorities' efforts 
to enforce the law have at times been insufficient, and there have been 
frequent delays in bringing violators to justice due to inefficiencies 
in Brazil's judicial process. Another problem is that statistics on the 
nature and extent of certain human rights violations are lacking. For 
instance, while there are serious concerns regarding the use of lethal 
force by some Brazilian police, there are no official statistics 
regarding the exact number of people killed nationwide each year in 
police operations. Reporting suggests, however, that a disproportionate 
number of these victims are Afro-Brazilian males under 25 years of age. 
This trend has led to public outcry and intense debate among civil 
society and within Brazil's Congress.
    I believe Brazil shares our perspective on the importance of 
advancing human rights, civil society, and democracy in general. At the 
same time, I recognize that with Brazil's economy experiencing its 
worst recession in decades, Brazil is currently facing a difficult 
fiscal situation, and government resources are limited. If I am 
confirmed, one of my challenges as Ambassador will therefore be to 
encourage Brazil to continue to invest the resources needed to 
strengthen its democratic institutions, expand the role of civil 
society, and enforce the human rights protections contained in 
Brazilian law.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Brazil? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will commit to meeting with civil society 
and other non-governmental organizations (NGOs) in the United States, 
as well as with local human rights NGOs in Brazil. Our U.S. Mission to 
Brazil regularly meets with civil society actors and NGOs to discuss 
bilateral and multilateral human rights issues, and if I am confirmed, 
I will pledge to do the same.
    I would also ensure that U.S. security assistance to Brazil and 
security cooperation activities with the Brazilian government continue 
to reinforce human rights, including by actively supporting the Leahy 
Law. We already enjoy an excellent security relationship with the 
Brazilian government thanks to our joint efforts to ensure the 2016 
Olympics are safe and successful. At the Brazilian government's 
request, we have been working together in a variety of areas, ranging 
from airport screening procedures to managing entry/exit at stadiums to 
looking at how to prevent serious security incidents in and around 
major sporting events. This is in addition to ongoing programs and 
activities by various law enforcement and other agencies in Brazil that 
have helped bolster Brazilian security capacity. Overall, our training 
programs and exchanges have benefited over 3,800 Brazilian security 
officials.
    For each of these programs and exchanges, our U.S. Mission to 
Brazil has taken all necessary steps to ensure compliance with Leahy 
vetting requirements. When arranging for security assistance and 
organizing security cooperation activities, the Mission has worked hand 
in hand with the Department's Bureau of Democracy, Human Rights, and 
Labor, which has in turn consulted closely with human rights NGOs like 
Amnesty International. When necessary, the Mission has evaluated 
Brazilian security forces down to the sub-unit level while clearing 
candidates for training. If confirmed, I will instruct my Embassy team 
to maintain the same level of rigor in Leahy vetting so as to ensure 
the continued momentum in our close security cooperation produces an 
even greater shared respect for human rights.

    Question.  Will you and your embassy team actively engage with 
Brazil to address cases of key political prisoners or persons otherwise 
unjustly targeted by Brazil?

    Answer. As the State Department's Human Rights Report has noted, 
there have been no reports of political prisoners or detainees in 
Brazil. Brazil's constitution and law provide for freedom of speech and 
press, and the Brazilian government has mostly respected these rights. 
The government places no restrictions on academic freedom or cultural 
events. Brazilian law provides for the freedoms of assembly and 
association, and the government generally respects these rights. If 
confirmed, I will remain in close contact with the Brazilian government 
about these important issues, and I will emphasize our shared belief 
that these fundamental freedoms must always be respected.

    Question.  Will you engage with Brazil on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will dedicate my efforts to continuing to 
advance the broad and deep bilateral agenda that President Obama and 
President Rousseff outlined when she visited Washington in June 2015. 
Human rights, civil rights, and good governance form an integral part 
of that agenda.As the two largest democracies in the hemisphere, Brazil 
and the United States are natural partners on issues of human rights. 
We share democratic values and a determination to defend the rights of 
our peoples. The United States and Brazil have a longstanding 
commitment to promoting human rights, diversity, and racial, ethnic and 
gender equality. In 2010, we signed a MOU for the Advancement of Women, 
and in 2008, we created a Joint Action Plan to Eliminate Racial and 
Ethnic Discrimination and Promote Equality (JAPER). We are co-founding 
members of the Open Government Partnership, and in 2015, we created a 
U.S.-Brazil Global Human Rights Working Group to improve our 
coordination on human rights issues in multilateral fora.
    If confirmed, I will work to maintain the positive momentum our two 
countries have created in terms of addressing issues of human rights 
and social inclusion. For instance, our U.S. Mission to Brazil has been 
very engaged in organizing events addressing issues that impact women, 
refugees, indigenous groups, people of African descent, religious 
minorities, persons with disabilities, and LGBTI persons. If confirmed 
as U.S. Ambassador to Brazil, I will ensure that these important policy 
and program engagements continue, and I will work to encourage 
collaborative action with government and civil society partners to 
promote human rights, civil rights, and good governance.

                               __________
               ambassador-designate mckinley's responses 
                    to questions from senator rubio

    Question.  Rio De Janeiro will host the 2016 Olympics August 5-21, 
2016 and Paralymics September 7-18, 2016. The acting Governor of Rio de 
Janeiro has declared a state of financial disaster just before the host 
city celebrates the Olympic Games.

  <diamond> Does the country have enough resources to follow through on 
        its commitments to protect people attending the Olympics?
  <diamond> Does the Brazilian government still believe it is safe for 
        people to travel to Rio even though a group of 100 scientists 
        formally wrote to disagree, stating that the Zika situation is 
        too dire?

    Answer. The Government of Brazil is fully committed to hosting a 
safe and successful Games, and is maintaining federal support for the 
Games. I understand the declaration of fiscal emergency will allow the 
State of Rio de Janeiro to access funds in advance of the Olympics to 
pay salaries, pay police overtime, and complete transportation 
projects.
    The Brazilian government has stated that there is a low public 
health risk related to Zika and the Olympics. The World Health 
Organization (WHO) and the U.S. Centers for Disease Control and 
Prevention (CDC) have stated that available evidence does not indicate 
there would be any meaningful public health impact from altering the 
schedule for the Games. All travelers to the Olympics should follow the 
recommendations outlined in the CDC's travel notice.

    Question.  In November 2015, Brazil's Ministry of Health declared a 
``public health emergency of national importance'' in response to a 
sharp increase in the number of infants born with microcephaly, a 
devastating birth defect caused by the Zika virus. Brazil's Ministry of 
Health has confirmed more than 1,550 cases since October 2015 linked to 
the rise of Zika infection in the country. What actions has the 
Brazilian government taken to stop the spread of Zika, to educate and 
screen pregnant women, and to care for children born with microcephaly?

    Answer. Brazil has responded quickly and transparently in its 
efforts to combat the Zika virus and better understand its relationship 
to microcephaly, Guillain-Barre Syndrome, and other neurological 
disorders. Brazil has launched a massive public awareness and vector 
control campaign, involving over 220,000 Brazilian armed forces and 
over 300,000 public health workers to conduct education campaigns and 
vector control measures in high-risk neighborhoods. In March, Brazil 
announced over $300 million in funding over the next three years to 
combat the Zika virus. We understand that Brazil is also working at the 
state and federal levels with the World Bank to reallocate existing 
program funds towards strengthening surveillance, maternal and child 
health and rehabilitation, and training for health workers.

    Question.  The U.S. Centers for Diseases Control and Prevention has 
been working with Brazil's Ministry of Health since early November 2015 
to understand the sudden increase in microcephaly and the impacts of 
Zika infection during pregnancy. What lessons have been learned from 
the widespread Zika infections in Brazil?

    Answer. There is extensive and high-level engagement between the 
U.S. government and the Government of Brazil on Zika virus and 
associated complications. The Brazilian Ministry of Health and the U.S. 
Centers for Disease Control and Prevention (CDC) are working in close 
collaboration on studies exploring the link between Zika virus and 
microcephaly and Guillain-Barre Syndrome.
    The CDC, along with the Brazilian Ministry of Health, launched in 
February the largest case control study analyzing the link between Zika 
and microcephaly. CDC scientists have announced there is enough 
evidence to conclude that Zika virus infection during pregnancy is a 
cause of microcephaly and other severe fetal brain defects and has been 
linked to problems in infants, including eye defects, hearing loss, and 
impaired growth. These studies have increased our understanding of who 
is at risk from Zika infection, in what stages of pregnancy is Zika 
able to cause neurologic problems, and helped target guidance and 
prevention to those populations.
    Brazilian scientists and the U.S. National Institutes of Health 
(NIH) are also collaborating on a study on Zika in pregnancy which will 
provide essential information on microcephaly and the full range of 
other health problems that Zika virus infection during pregnancy may 
cause. Other NIH collaborations with Brazilian institutions are 
developing various Zika vaccines and a potential vaccine for both Zika 
and dengue fever. The CDC is working with the Brazilian Ministry of 
Health on better Zika surveillance and innovative ways to control the 
mosquito vector that spreads the disease. The U.S. Department of Health 
and Human Services (HHS) is also working with Brazil to develop faster, 
more definitive testing methods for Zika. These efforts have helped 
Brazil combat Zika, and help U.S. citizens that are exposed to Zika to 
be rapidly diagnosed and managed appropriately. If confirmed, I will 
ensure we maintain the highest-level engagement, as our current 
Ambassador has done, to ensure U.S.-Brazil cooperation on Zika remains 
robust.

    Question.  According to the State Department, Brazil is a source, 
transit, and destination country for men, women, and children exploited 
in forced labor and sex trafficking. The State Department rates Brazil 
a ``Tier 2'' in its 2015 Trafficking in Persons Report, asserting that 
the Brazilian government ``does not fully comply with the minimum 
standards for the elimination of trafficking'' but ``is making 
significant efforts to do so.'' Although, the Brazilian government has 
improved data collection on victim identification, strengthened 
penalties for child sex traffickers, and continued awareness-raising 
efforts, Brazilian statutes prohibits trafficking do not align with 
international law and Brazil convicts relatively few traffickers given 
the scale of the problem. If confirmed, what is your plan to work with 
the Brazilian government to comply with the standards set in the State 
Department Trafficking in Persons Report?

    Answer. If I am confirmed, I will redouble the State Department's 
calls for Brazil to increase its efforts to investigate and prosecute 
trafficking offenses and impose sentences commensurate with the 
severity of the offense. I will encourage Brazil's Congress to advance 
legislation to harmonize the definition of trafficking with the 2000 
U.N. Trafficking in Persons Protocol and increase the minimum sentences 
for anti-trafficking crimes. My understanding is that a draft of this 
legislation has already been introduced, in 2014.
    I will also call on Brazil to continue improving coordination and 
collaboration between judges and prosecutors in trafficking cases so as 
to arrive at final convictions more quickly. To ensure victims are 
identified and cared for, I will urge the Brazilian government to 
partner with civil society to offer specialized, comprehensive services 
to victims of sex trafficking and forced labor and to provide officials 
working at social service centers with sufficient funding and training. 
I will also voice support for the Brazilian government's ongoing 
efforts to implement awareness-raising campaigns and other preventive 
initiatives. In these ways, I will, if confirmed, support Brazil's 
continued progress toward meeting the standards for the elimination of 
trafficking in persons, as defined by the Trafficking Victims 
Protection Act.

                               __________
               ambassador-designate mckinley's responses 
                    to questions from senator perdue

    Question.  If confirmed, you may need to interact with Interim 
President Temer and/or his interim government. How do you see yourself 
dealing with the challenges of an interim government setting? If 
political turmoil continues in Brazil, how will that affect U.S. 
interests in Brazil? In the region? How would an elongated interim 
government affect your agenda for the coming year?

    Answer. I recognize Brazil is facing a challenging political 
moment, but I am confident Brazil will work through its political 
challenges democratically and in accordance with constitutional 
principles. Furthermore, I believe our relationship with Brazil will 
remain strong and the United States will have ample opportunities to 
engage with the Brazilian government on our bilateral, regional, and 
global priorities even as Brazil's domestic political situation plays 
out.
    If I am confirmed, I will seek to work with the Brazilian 
government to continue implementing the broad, forward-looking agenda 
President Obama and President Rousseff laid out when she visited 
Washington in June 2015. Acting President Temer and several of his 
ministers have expressed interest in building upon the momentum we have 
established in our bilateral cooperation since that visit. I anticipate 
our two countries will continue to engage via our some 20 major 
bilateral dialogues, which address trade and investment, human rights, 
climate change, internet and information and communications technology, 
defense, and a host of other topics. For example, we are holding our 
U.S.-Brazil Commercial Dialogue June 28-29 in Washington, and we are 
pressing forward with our bilateral cooperation on the 2016 Summer 
Olympics and fighting the spread of the Zika virus.

    Question.  While most U.S.-Brazil trade declined last year, the 
U.S. was able to maintain a merchandise trade surplus with Brazil 
valued at $4.2 billion. Indeed, the United States remains Brazil's 
second-largest trade partner, behind China. As ambassador, how would 
you promote the U.S. merchandise exports to Brazil to ensure that we 
remain competitive with China in Brazil's market? What other economic 
sectors do you think have the potential to increase U.S.-Brazil trade?

    Answer. If confirmed as U.S. Ambassador to Brazil, continuing to 
develop our commercial ties with Brazil would be a key focus of mine. 
Annual two-way trade in goods and services between our countries is 
already considerable, having reached $100 billion in recent years, but 
we can increase it even more. If confirmed, I will dedicate my efforts 
to advancing our leaders' vision of doubling trade within ten years, 
and I will work with Brazil to lower trade barriers and spur additional 
growth in our trade and investment relationship.
    We are advancing the trade relationship through a number of 
important dialogues, including the U.S.-Brazil Commission on Economic 
and Trade Relations under the Agreement on Trade and Economic 
Cooperation, the Commercial Dialogue, and the U.S.-Brazil CEO Forum. In 
March of this year, for the first-time ever, a meeting of the U.S.-
Brazil Commission on Economic and Trade Relations was held at the 
ministerial level. Recognizing the importance of the manufacturing 
sector as a key driver of economic growth in both countries, the United 
States and Brazil agreed in principle at the ATEC to establish an 
ongoing dialogue on policies that promote investment in manufacturing.
    From manufacturing to energy, retail to high-tech, our firms trade 
with and invest in Brazil. The United States is Brazil's largest source 
of foreign direct investment (FDI), with a stock value of $70 billion. 
The Government of Brazil actively encourages FDI, particularly in the 
automobile, renewable energy, life sciences, oil and gas, and 
transportation infrastructure sectors. In his inaugural speech in May, 
Brazilian Foreign Minister Serra said, in the short-term, Brazil should 
focus on removing non-tariff barriers to trade and regulations that 
obstruct trade. We are working with Brazil in those concrete areas, 
including standards, trade facilitation, and innovation, through the 
June 28-29 Commercial Dialogue.

    Question.  With the Olympic Games taking place in Rio this summer, 
Brazil must gird itself for the possibility of terrorist threats. What 
steps would you recommend Brazil take to increase security for the 
Games? Would you recommend increased security for areas that will 
likely attract Western tourists? What steps would you take to ramp up 
security at the U.S. Embassy should a terrorist attack occur?

    Answer. The Government of Brazil (GOB) is committed to hosting a 
safe and successful Olympic and Paralympic Games, and we are confident 
in Brazil's ability to deliver on that commitment. The 2014 Brazil 
World Cup tournament was a success, and we expect the same outcome for 
the Olympics and Paralympics. The GOB is deploying a security force of 
85,000 for the Rio Olympics, which is more than twice as many as were 
deployed for the London Olympics. There is an increasing awareness in 
Brazil of the threat of terrorism, and we are pleased that Brazil 
passed a new counterterrorism law in March of this year, which defines 
and criminalizes terrorism and terrorist financing. This legislation 
has opened up new channels of security cooperation between our two 
governments.
    At the Brazilian government's request, we have been working 
together in a variety of areas, ranging from airport screening 
procedures to managing entry/exit at stadiums to looking at how to 
prevent serious security incidents in and around major sporting events. 
We have facilitated visits to the United States for Brazilian security 
personnel to observe our mega event security management and command and 
control centers during events like the Boston Marathon, a PGA golf 
tournament, the U.N. General Assembly, and the Super Bowl. We have been 
able to support a variety of Brazilian requests for subject matter 
exchanges in areas such as protection of soft targets, drones, suicide 
bombers, behavioral observation and suspicious activity recognition, 
and chemical, biological, radiological, and nuclear explosion response 
(CBRNE)--over one hundred such trainings in all. Overall, our training 
programs and exchanges have benefited over 3,800 Brazilian security 
officials.
    The U.S. government is also engaged in extensive contingency 
planning for various security and/or medical incidents. We have 
emergency action plans in place that we will follow in these types of 
situations. We will also have an inter-agency Joint Operations Center 
in place at U.S. Consulate General Rio de Janeiro that will be able to 
monitor all security situations and liaise with host government 
officials.

    Question.  The Brazilian government has taken a number of positive 
steps toward investigating the cause of the Zika virus and educating 
its citizens about the risks of being infected. However, with the 
Olympic Games coming to Rio, some worry that the steep uptick in 
visitors could cause infection rates around the world to skyrocket. 
What steps, if any, is Brazil taking to increase health security and 
awareness among Brazilian citizens as well as foreign visitors for the 
Games? Will U.S. health organizations be involved in any kind of 
awareness campaign? If confirmed, how would you advise the U.S. 
government propose to help, if at all?

    Answer. Brazil is working very hard to protect the health and 
safety of all of the athletes and spectators attending the Games in 
Brazil, including through public awareness campaigns and vector control 
efforts at Olympic sites, and we continue to be supportive of those 
efforts to protect those who are participating in the Games. The 
Brazilian Government has also emphasized that the Olympic Games will 
take place during Rio de Janeiro's winter, when the population of 
mosquitos is low.
    The World Health Organization and the U.S. Centers for Disease 
Control and Prevention (CDC) have stated available evidence does not 
indicate there would be any meaningful public health impact from 
altering the schedule for the Games. All travelers to the Olympics 
should follow the recommendations outlined in the CDC's travel notice.
    The U.S. government, including the State Department and the 
Department of Health and Human Services--and its CDC--is coordinating 
an extensive public relations campaign for travelers to the Olympics. 
The U.S. government has launched the #USinRio campaign for travelers to 
the Olympics. As part of this campaign, our Ambassador to Brazil filmed 
a welcome video and launched a blog (www.usmissionbrazil.org/usinrio). 
The #USinRio campaign advises U.S. citizens traveling to Brazil to 
visit travel.state.gov, a one-stop shop containing travel information 
on security, authorized ticket sellers, and emergency contact 
information for the embassy, consulates, and consular agencies. State's 
Olympic and Paralympic Fact Sheet on travel.state.gov contains links to 
essential resources such as the U.S. Mission to Brazil's Olympics 
Brochure, the #USinRio smartphone app (which includes information on 
hospitals, emergency services, links to the CDC for information on Zika 
and other health issues, and consular information), and the CDC Travel 
Notice on the Zika virus.
    U.S. authorities intend to disseminate our information regarding 
travel to the Olympics broadly, including by highlighting it on 
travel.state.gov, through our passport agencies and acceptance 
facilities, in travel and sports publications, and via official social 
media platforms such as Facebook, Instagram, and Twitter. The 
Department has also developed a tri-fold flier for printing and 
distribution. Uber, Starbucks, McDonald's, and Airbnb representatives 
have agreed to assist with disseminating the tri-fold flier and contact 
cards in Brazil.

    Question.  With increased violence from drug trafficking in the 
Northern Triangle, what effect has this unrest had on Brazil? What 
efforts is Brazil taking to increase its borders against violence and 
drug trafficking? In your opinion, is there anything more the U.S. 
could do to help?

    Answer. Violence related to drug trafficking and gangs in the 
Northern Triangle has had little direct impact on Brazil, but drug 
trafficking in general continues to be an issue for Brazil. Brazil is a 
major transit and destination country for cocaine, and the Brazilian 
drug trade is controlled by large, violent, and well-organized drug 
trafficking organizations operating throughout the country.
    The Brazilian government recognizes the seriousness of the 
situation, and it is committed to combating drug trafficking and 
addressing its growing domestic consumption problem. Brazil continues 
to implement supply reduction, prevention, and treatment programs under 
its 2010 National Integrated Plan to Confront Crack and Other Drugs. 
Brazil is a party to the three U.N. drug conventions, and it also 
maintains bilateral narcotics control agreements with the United States 
and every country in South America. Brazil cooperates with programs 
administered by the U.N. Office on Drugs and Crime, the Organization of 
American States' Inter-American Drug Abuse Control Commission, and 
INTERPOL. The Brazilian military is also piloting an integrated 
frontier monitoring system on a limited basis. Brazil eventually hopes 
to expand this system to cover its entire border.
    The best way for the United States to support Brazil's efforts is 
to continue deepening our work with Brazilian security counterparts. In 
recent years, we have provided significant training support to 
Brazilian law enforcement. In 2015, the United States provided 26 
courses for almost 1,000 officers. If I am confirmed, I will seek 
opportunities to deepen our bilateral cooperation in this important 
area and further build Brazil's capacity to combat narcotics 
trafficking.

                               __________
               ambassador-designate mckinley's responses 
                    to questions from senator markey

    Question.  Ambassador McKinley, many experts are concerned that the 
prevalence of Zika in Brazil at a time when over half a million people 
are expected to visit Rio for the Summer Olympics could elevate the 
risk that Zika will spread. Given the current political crisis and the 
financial situation in Brazil:

          How prepared is Brazil to deal with the Zika epidemic, not 
        only during the Olympics but also in the long term?

    Answer. Brazil has responded quickly and transparently in its 
efforts to combat the Zika virus and better understand its relationship 
to microcephaly, Guillain-Barre Syndrome, and other neurological 
disorders. Brazil has launched a massive public awareness campaign and 
is working together with the U.S. government on research and 
development on vaccines and treatments; further development of 
diagnostic tests; studies to provide a better understanding of the 
virus and its clinical outcomes; and improved control of the mosquito 
vector.
    Brazil is also working very hard to protect the health and safety 
of all of the world-class athletes and spectators attending the Games 
in Brazil, including through vector control efforts at Olympic sites, 
and we continue to be supportive of those efforts to protect those who 
are participating in the Games. The Brazilian government has also 
emphasized that the Olympic Games will take place during Rio de 
Janeiro's winter, when the population of mosquitos is low.
    The World Health Organization and the U.S. Centers for Disease 
Control and Prevention have stated that available evidence does not 
indicate there would be any meaningful public health impact from 
altering the schedule for the Games. All travelers to the Olympics 
should follow the recommendations outlined in the CDC's travel notice.

    Question.  Is Brazil currently investing enough in controlling and 
preventing Zika? Where will money needed for health sector investments 
come from as Brazil economy faces the deepest recession in generations?

    Answer. Brazil has significantly invested in efforts to control and 
prevent Zika and associated neurological disorders. In March, Brazil 
announced over $300 million in funding over the next three years to 
combat the Zika virus. The government plans to redirect existing 
resources to meet this goal.
    Brazil has launched a massive public awareness and vector control 
campaign, involving over 220,000 Brazilian armed forces and over 
300,000 public health workers to conduct education campaigns and vector 
control measures in high-risk neighborhoods.
    In Brazil's Northeast region, the region hardest hit by the Zika 
crisis, there have been increased demands for health services due to 
the Zika crisis. Hospitals are prioritizing care for pregnant women, 
children, and elderly patients.
    Brazil is also working at the state and federal levels with the 
World Bank to reallocate existing program funds towards strengthening 
surveillance, maternal and child health and rehabilitation, and 
training for health workers.

    Question.  What can you do as Ambassador to help them focus on 
this? What kind of help can we give them to prevent the further spread 
of Zika?

    Answer. If confirmed, I will ensure we maintain the highest-level 
engagement, as our current Ambassador has done, to ensure U.S.-Brazil 
cooperation on Zika remains robust. In February, the U.S. Ambassador to 
Brazil launched a Zika Task Force that is facilitating communication, 
interagency coordination, and follow-on actions, and is attentive to 
the implications on consular matters, management decisions, public 
messaging, commercial interests, and political repercussions of the 
disease.
    There is extensive and high-level engagement between the U.S. 
government and the Government of Brazil on Zika virus and associated 
complications. The Brazilian Ministry of Health and the U.S. Department 
of Health and Human Services, including the Centers for Disease Control 
and Prevention (CDC), National Institutes of Health (NIH), Food and 
Drug Administration (FDA), and Biomedical Advance Development and 
Research Authority (BARDA), are working in collaboration to analyze, 
validate, and exchange information about the Zika outbreak, facilitate 
the development and availability of medical products to respond to 
Zika, spearhead biomedical research related to Zika, and address 
medical countermeasure needs for the Zika response.
    Brazilian scientists and NIH are also collaborating on a study on 
Zika in pregnancy which will provide essential information on 
microcephaly and the full range of other health problems that Zika 
virus infection during pregnancy may cause. Other NIH and 
collaborations with Brazilian institutions are developing various Zika 
vaccines and a potential vaccine for both Zika and dengue fever. BARDA 
and FDA are providing technical and regulatory assistance to aid Brazil 
in developing vaccines. The CDC is working with the Brazilian Ministry 
of Health on better Zika surveillance and innovative ways to control 
the mosquito vector that spreads the disease. The CDC is also working 
in close collaboration on studies exploring the link between Zika virus 
and microcephaly and Guillain-Barre Syndrome.
    These efforts have helped Brazil combat Zika, and help U.S. 
citizens that are exposed to Zika to be rapidly diagnosed and managed 
appropriately. If confirmed, I would continue and expand our engagement 
with Brazil to combat the spread of Zika.

                               __________

      Responses of Lawrence Silverman, Nominated to be Ambassador 
          to Kuait, to Questions from Members of the Committee

              ambassador-designate silverman's responses 
                    to questions from senator cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have been directly involved in our efforts to promote 
respect for human rights in every overseas post in which I have served. 
In Turkey and as Director of the Turkey desk in Washington, I led the 
successful diplomatic effort to gain the Turkish government's opening 
of what we believe was the first women's shelter for victims of 
trafficking. In Syria, Jordan, Namibia (then under South African rule) 
and Turkey, I monitored human rights issues and contributed to the 
human rights reporting, including preparation of the annual Human 
Rights Report. I have pressed foreign governments on such priorities as 
freedom of speech and the press, judicial independence, fair and 
transparent trials, women's and minority communities, proper treatment 
of detainees and prisoners, and the encouragement of laws against 
conflict of interest, therefore reducing the potential for corruption. 
While responsible for our assistance programs in the former Soviet 
Union and Central and Eastern Europe, I encouraged and oversaw programs 
to eliminate discrimination against minorities, monitor elections for 
fairness, improve labor laws, stop trafficking in persons and supported 
the development of civil society. I also pressed for the release of 
detainees in Ukraine and democratic reform in such authoritarian states 
as Belarus.

    Question.  What are the most pressing human rights issues in 
Kuwait? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Kuwait? What do you 
hope to accomplish through these actions?

    Answer. Kuwait has made progress in upholding and expanding 
protections for human rights over the past decade, but more work 
remains to be done. Women were granted the right to vote in 2005, the 
private sector labor law was passed in 2010, an Anti-Human Trafficking 
law was passed in 2013, under which, for the first time, Kuwait 
convicted eight traffickers in 2015, and most recently, the first 
domestic worker law was passed in 2015, although it is yet to be 
implemented. With the passage of legislative reform comes the 
requirement to properly implement the law, and I believe this is where 
our assistance and raising these issues can be used to good effect.
    First, I believe the plight of domestic workers (numbering over 
300,000) must remain a priority. These individuals are subjected to the 
worst forms of labor abuse and I am encouraged that the government has 
passed a law providing domestic workers in Kuwait enforceable rights 
for the first time. U.S. training and expertise to assist the Kuwaiti 
authorities in the implementation of these laws could improve the 
plight of these workers.
    Promoting women's rights is also a priority. Kuwait has one of the 
largest female labor participation rates among the countries of the 
Gulf Cooperation Council (GCC), and I believe we could see progress 
with the empowerment of women in all sectors. However, despite the fact 
that four women won seats in Parliament following the 2009 elections, 
there are no women in the current Parliament, and only one woman in the 
cabinet (holding two ministerial portfolios). Kuwaiti women married to 
non-Kuwaitis are also unable to pass on citizenship to their children. 
Kuwaitis are having an important conversation within their society on 
the value and importance of women's rights, and I believe that with 
continued engagement from the United States, additional progress can be 
made to increase political participation and representation, and ensure 
greater equality in both law and practice.
    Finally, we need to continue to focus on upholding freedom of 
expression. Kuwait has one of the most liberal societies in the GCC 
region. Following protests in 2012 for government reforms, there were 
increased government restrictions on freedom of expression, and 
legislation was passed that restricts expression online and in print 
media, but we are starting to see what we hope will be a reversal of 
that trend, which provides an opening for us to press local leaders to 
initiate reforms that safeguard freedom of expression and promotes 
greater religious tolerance and freedom of conscience.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kuwait in advancing 
human rights, civil society and democracy in general?

    Answer. There are factors that have constrained democratic 
development in Kuwait: geo-political events play a major role in 
Kuwaiti politics and governance, leading authorities to at times slow 
democratic development. Kuwait has experienced significant social 
change over the past few years and Kuwaiti society is still absorbing 
the passage of a number of important laws, such as suffrage laws and 
more recently, labor reforms. These laws hold both the Kuwaiti 
government and Kuwaitis accountable to a greater degree than in the 
past and may meet resistance by some in implementation. These 
challenges must not hinder progress. I will continue to press for the 
advancement of democracy, human rights, and the rights of civil 
society.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kuwait? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am absolutely committed to meeting with local and 
international civil society organizations. Civil society activism 
exists in Kuwait, and I believe the embassy has a critical role to play 
in fostering an atmosphere in which local NGOs can grow and mature and 
play an effective role in advocating for positive change. I will ensure 
continued compliance with the Leahy Law through the application of 
Leahy vetting for all military and law enforcement personnel who 
receive training from U.S. military and law enforcement.

    Question.  Will you and your embassy team actively engage with 
Kuwait to address cases of key political prisoners or persons otherwise 
unjustly targeted by Kuwait?

    Answer. Yes. I am prepared to actively engage with the Kuwait 
government to address such cases. As I stated above, I will continue to 
push Kuwait to uphold freedom of expression, association, and assembly.

    Question.  Will you engage with Kuwait on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. I believe that all three of these issues must go 
together in order to create an effective and engaged civil society. 
Kuwait is on a pathway to make progress in all three of these areas and 
particularly as it approaches elections in 2017, we must continue to 
make human rights, civil rights, and governance a central pillar of our 
bilateral mission.

                               __________
              ambassador-designate silverman's responses 
                    to questions from senator rubio

    Question. Last week the New York Times reported that dozens of 
diplomats and other mid-level officials filed a dissent memo with the 
State Department's senior leadership calling for military strikes 
against Syrian President Bashar al-Assad. According to the New York 
Times a draft of the memo stated that ``the status quo in Syria will 
continue to present increasingly dire, if not disastrous, humanitarian, 
diplomatic, and terrorism-related challenges'' and that ``it is time 
for the United States, guided by our strategic interests and moral 
convictions, lead a global effort to put an end to this conflict once 
and for all.''

  <diamond> Do you know the diplomats and other mid-level officials who 
        signed this dissent memo?

    Answer. I know some of them.

    Question. Do any of them report to you in your current capacity as 
Deputy Assistant Secretary of State?

    Answer. None of them report directly to me. In my capacity as 
Deputy Assistant Secretary for Syria, Jordan and Lebanon, some of them 
report to people who report to me.

    Question. Do you agree with the conclusions of the memo?

    Answer. These are extremely tough issues: How to get a successful, 
cessation of hostilities; how to ensure full, unimpeded humanitarian 
access to all Syrians in need; and how to bring about a genuine 
political transition in accordance with the Geneva Communique. We are 
also working all-day, every day to defeat Da'esh in Syria, Iraq and 
elsewhere. That's what we are trying to do, and there are regular, 
frank discussions about how best to go about it. We are very focused on 
getting the cessation of hostilities enforced nationwide in an enduring 
way and getting humanitarian assistance to the still millions of 
Syrians in need. We do not believe there is a military solution to this 
conflict, so we are working to bring about a political solution, which 
includes a transition away from Asad.

    Question. If not, what elements of their argument do you disagree 
with?

    Answer. We do not believe that there is a military solution to this 
conflict. Rather, we are working to bring about a political solution 
that includes a transition away from Asad.Questions for the Record 
Submitted to

                               __________
              ambassador-designate silverman's responses 
                    to questions from senator perdue

    Question.  Kuwaiti officials have publicly stated that they would 
conform to a Saudi-Russia agreement to freeze oil production at January 
2016 existing levels--a move that some producers have said could 
stabilize world oil process. As U.S. ambassador, how, if at all, would 
you go about advising the Kuwaiti government about this deal? Would you 
see yourself having a role in regional discussions should the deal go 
forward?

    Answer. The United States believes that market forces should 
determine the price of oil. If asked by the Kuwaiti government to 
provide advice about oil production deals, I would advise that the U.S. 
government does not take a position on oil prices and that market 
forces, not governments or organizations, should determine the price of 
oil. As the Ambassador to Kuwait, I would regularly confer with fellow 
U.S. ambassadors in the region, U.S. government officials in Washington 
leading our approach on energy issues, high-level Kuwaiti government 
officials, and international oil companies doing business in Kuwait.

    Question.  The US coalition has benefitted greatly from Kuwait's 
willingness to serve as a base of operations for the coalition against 
ISIS in Iraq and Syria. As you reference in your testimony, Kuwait has 
also experienced a terrorist attack at the hands of an ISIS fighter. 
However, Kuwait has not participated in actual military operations 
against ISIS with the coalition in Iraq or Syria. They did participate 
in military operations in Yemen on behalf of the Saudi coalition there. 
Why do you think Kuwait has chosen to join forces in Yemen against the 
Houthis, but not to join forces in Iraq and Syria against ISIS? As 
ambassador, would you encourage the Kuwaiti government to reconsider?

    Answer. Kuwait's access, basing, and overflight for Operation 
Inherent Resolve is critical to the Coalition's ability to conduct 
operations to defeat ISIL, as is Kuwait's longtime hosting of Army 
Central Command. In addition to this military support, the Kuwaitis 
have made important contributions along several lines of effort in the 
battle against ISIL, including support for Iraqi Prime Minister al-
Abadi's government; the contribution of billions in humanitarian 
assistance to the people of Syria, Iraq, and the neighbors hosting 
refugees; stabilization of liberated areas in Iraq; the deferral of 
Iraq's reparation payments; and the countering of ISIL's messaging.
    We are encouraging the Kuwaitis to increase their contributions to 
the campaign, an effort I would continue if confirmed.

    Question.  Kuwaiti relations with Iran are complicated, however, 
diplomatically, they are relatively normal. Some speculate that 
Kuwait's engagement with Iran has allowed Kuwait to position itself to 
mediate talks between Saudi Arabia and the Houthis. Do you see this 
engagement with Iran as a positive or a negative for U.S. interests in 
Kuwait? In the region? Do you think this engagement could lead to more 
sympathy for the Iranian regime?

    Answer. At the Camp David U.S.-GCC Summit in May 2015, President 
Obama, the Amir of Kuwait, and other GCC leaders all stated that they 
``oppose and will work together to counter Iran's destabilizing 
activities in the region'' and called on Iran to ``take concrete, 
practical steps to build trust and resolve its differences with 
neighbors by peaceful means.'' To this end, we have worked with our GCC 
partners to accelerate arms transfers and improve their military 
preparedness, ballistic missile defense, counterterrorism, and cyber 
capabilities, so that they can face any Iranian aggression from a 
position of strength.
    This April, when they met in Riyadh at the U.S.-GCC summit, the 
Amir and other GCC leaders discussed with President Obama the 
challenges posed by Iran's problematic regional activities, and they 
underscored the importance of an inclusive approach to de-escalating 
regional conflicts. Kuwait withdrew its ambassador to Tehran in 
January, in protest against the attacks on the Saudi Arabian diplomatic 
mission in Iran; other GCC countries also downgraded or broke 
diplomatic relations with Iran.
    Kuwait has not yet returned its ambassador. Kuwait, like the other 
GCC countries, has expressed a willingness to engage with Iran in order 
to resolve regional issues but stresses that Iran must be a good 
neighbor and cease its interference in domestic internal affairs of 
other countries. The U.S. has a strong national interest in promoting 
regional stability, a goal we share with Kuwait. The Kuwaitis remain 
key partners in our efforts to de-escalate and resolve regional 
conflicts by peaceful means, including by facilitating the current 
negotiations on Yemen.

    Question.  The State department Trafficking in Persons report for 
2015 ranked Kuwait as a ``Tier 3'' country for the eighth year in a 
row, meaning that the government is not making sufficient efforts to 
comply with minimum standards of the elimination of trafficking. Though 
Kuwait passed a new human trafficking law in 2013, it seems that there 
is little interest in pursuing prosecutions under the law. Why do you 
think that is? Do you think the U.S. should respond, given the extent 
of U.S. involvement in the country? If so, how? What would you do, as 
ambassador, to push them to take steps to improve their rating?

    Answer. Trafficking in persons has indeed been a significant 
problem in Kuwait and remains a serious concern of the U.S., but we are 
starting to see progress. In 2015, for the first time, Kuwait 
prosecuted cases under the 2013 human trafficking law. This is an 
important step to deter as well as punish traffickers, and one that 
needs to continue.
    The establishment of the Anti-Human Trafficking Department within 
the Ministry of Interior in 2015 was another positive step. Kuwait also 
passed the first-ever domestic workers law, with enforceable rights, in 
2015, although we are still awaiting its implementation. This law will 
need to be implemented properly, and our ongoing assistance and 
advocacy on these issues can be used to improve the situation of these 
workers.
    The plight of domestic workers will remain a priority for Embassy 
Kuwait. If confirmed, I will press for further progress to eliminate 
human trafficking and enhance respect for domestic workers' rights, and 
will support U.S. training and expertise to facilitate Kuwait's 
implementation of these laws.
    It would also be useful for Kuwait to address the cultural norms 
that sometimes enable the abuse of domestic workers. Public awareness 
campaigns, carried out with the support of International Organization 
for Migration (IOM), International Labor Organization (ILO), local non-
governmental organizations, and government labor officials, could 
change societal perceptions towards this vulnerable workforce, bring 
about a safer work environment, and substantially reduce trafficking.

    Question.  Kuwait's political system which incorporates secular and 
Islamist political factions is widely seen as a model for the region. 
As U.S. ambassador, would you seek to engage in dialogue with other 
nations in the region who are struggling to unite secular and religious 
factions under the umbrella of civil society?

    Answer. Kuwait is unique in the region for its tradition of 
constitutional, participatory governance, as exemplified by its 
independent parliament. The continuation of democratic development in 
Kuwait is in the U.S. interest. If I am confirmed as U.S. Ambassador, I 
will focus on encouraging further progress with respect to democracy in 
Kuwait. I would maintain our priority on supporting human rights, the 
growth of civil society, and the protection of freedom of expression. 
Our Missions to the other countries in the region are engaging with 
those governments on the development of democracy.

                               __________

    Responses of Carol Z. Perez, nominated to be Ambassador to The 
    Federative Republic of Brazil, to Questions from Members of the 
                               Committee

                ambassador-designate perez's responses 
                    to questions from senator cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career I have supported human rights and 
promoted democracy. During my tenure in the Bureau of International 
Narcotics and Law Enforcement Affairs, I worked to provide rule of law 
and justice programs that helped fragile states protect their citizens 
and ensure accountability for violations of their human rights. In 
Central America, our programs improved citizen security, reduced drug 
trafficking and transnational organized crime, and helped reduce the 
dangerous irregular migration and trafficking of unaccompanied children 
to the United States. In the Caribbean and Central and Southeast Asia, 
I engaged with government officials and civil society to improve 
justice systems, build new, humane prisons and introduce alternatives 
to incarceration. In Ukraine, I worked to transform the police and 
justice services, building the capacity of a new generation of rule of 
law practitioners. In Milan, I facilitated dialogue among Northern 
Italy's growing immigrant population with the center-right, often 
xenophobic local and regional governments, promoting inclusion and 
finding ways to counter violent extremism. If confirmed, I look forward 
to continue promoting human rights and democracy as Ambassador to 
Chile.

    Question.  What are the most pressing human rights issues in Chile? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Chile? What do you hope to 
accomplish through these actions?

    Answer. The United States and Chile are bound by shared interests 
and values, including a commitment to democracy and human rights. If 
confirmed, I would continue our cooperation in multilateral 
organizations such as the United Nations, where Chile is a staunch ally 
in global human rights. In 2014, Chile's leadership at the U.N. Human 
Rights Council led to the passage of the second-ever U.N. resolution on 
violence and discrimination based on sexual orientation and gender 
identity.
    We applaud the Chilean government's continued efforts to find 
answers in cases of human rights violations during the Pinochet 
dictatorship. If confirmed, I will ensure our Embassy continues to 
support the family members in their search for justice for Boris 
Weisfeiler, a U.S. citizen who disappeared while hiking in southern 
Chile in 1985. The victims and families in cases of human rights 
violations must be able to seek justice, regardless of when those acts 
were committed.
    The Department of State is concerned by the recent wave of attacks 
on churches of several denominations. If confirmed, I would continue 
the dialogue about security and religious freedom with the government, 
civil society, and religious institutions. The attacks on churches and 
other properties are believed to be committed by a small number of 
private actors and are taking place within the larger context of an 
ongoing conflict between the Mapuche indigenous community and the 
Chilean government. If confirmed, I will also continue our engagement 
with the Mapuche and other indigenous groups to support their peaceful 
political participation. Chileans have called on authorities to fully 
investigate these crimes, and the Chilean government is working to 
provide security for rural churches in the Araucania region.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Chile in advancing 
human rights, civil society and democracy in general?

    Answer. The United States and Chile maintain an open dialogue on 
advancing human rights, engaging civil society, and strengthening 
democracy around the world. If confirmed, I would look forward to 
continuing that and working with the Chilean government, law 
enforcement, civil society groups, religious institutions, and the 
private sector to promote the human rights, particularly of LGBTI 
persons and other marginalized groups.
    The United States and Chile work closely together in multilateral 
organizations including the Open Government Partnership to promote 
transparency and access to public services, and the Community of 
Democracies, where Chile, as a member of the Executive Committee, 
supports sharing best practices to strengthen the world's democracies. 
Chile is also a member of the Global Equality Fund, supporting civil 
society in combatting violence and discrimination on the basis of 
sexual orientation or gender identity. If confirmed, I would seek to 
continue the open dialogue with Chile about promoting human rights 
around the world--leveraging our cooperation in multilateral 
institutions while also encouraging Chile's leadership on regional 
issues; for example, ensuring human rights in Venezuela and Cuba. I 
would also continue to support family members of U.S. citizen victims 
who continue to seek answers regarding human rights crimes that were 
committed during the Pinochet era.
    Finally, despite Chile's global leadership in advancing LGBTI 
rights, we remain concerned about reports of three Chileans murdered 
and dozens injured in homophobic attacks in 2015, and sadly, violent 
incidents against LGBTI persons continued in 2016. In light of these 
attacks, many Chileans recognize protections for LGBTI individuals as a 
clear human rights issue due to the work of Chile's dynamic civil 
society. If confirmed, I would work with the Chilean government and 
civil society to take meaningful steps in advancing the human rights of 
LGBTI persons at home and around the globe.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Chile? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. The United States and Chile share interests, concerns and, 
most importantly, values, including the importance of civil society 
engagement in a democracy. If confirmed, I would strengthen our already 
close working relationship with human rights, civil society, and non-
governmental organizations in the United States and Chile.
    As a member of the INL FO team, I ensured my offices and our 
programs completely met Leahy requirements. This included funding 
officers dedicated to Leahy vetting for our large Colombia, CARSI and 
Mexico programs. I also was involved in authoring the standard text for 
the Department's interagency agreements, and for INL's international 
organization agreements and contracts and grants, all of which require 
that our partners adhere to the Leahy rules and requirements. Finally, 
with responsibility for oversight of the INL Air Wing, I ensured my 
team vetted all foreign national air crews that we trained and/or used 
for counter narcotic efforts. If confirmed, I will be equally diligent 
in ensuring that the embassy continues to adhere to the Leahy rules and 
requirements.

    Question.  Will you and your embassy team actively engage with 
Chile to address cases of key political prisoners or persons otherwise 
unjustly targeted by Chile?

    Answer. There were no reports of political prisoners or detainees 
in 2015, although some indigenous Mapuche convicted of criminal 
offenses claimed to be political prisoners. Chile has an independent 
and impartial judiciary in civil matters that permits individuals to 
seek civil remedies for human rights violations. However, the civil 
justice system retains antiquated and inefficient procedures. If 
confirmed, I would work with the Chilean judicial system to share best 
practices in modern, efficient judicial practices.

    Question.  Will you engage with Chile on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I would continue to work with Chile on human 
rights, civil rights, the engagement of civil society, and governance. 
Chile is a model democracy, well-known for its dedication to the 
principles of transparency, freedom of expression, and an independent 
judiciary. Chile routinely scores high marks for good governance, 
openness, and rule-of-law. Chile ranked 23 out of 168 countries on 
Transparency International's 2015 Corruption Perceptions Index, the 
second highest in Latin America.
    Together, the United States and Chile can continue to take 
meaningful steps in advancing the human rights of LGBTI persons at home 
and around the globe. Through the work of Chile's dynamic civil 
society, many Chileans recognize combating violence and discrimination 
on the basis of sexual orientation or gender identity as a clear human 
rights issue. Chile's Ministry of Foreign Affairs shares this 
perspective, and said the country's foreign policy is ``characterized 
by support for the promotion and respect of human rights, including 
LGBTI rights.''

    Question.  What is your assessment of whether the U.S.-Chile Free 
Trade Agreement is living up to its full potential? Additionally, what 
efforts will you take to prioritize trade facilitation, including 
working with key institutions such as OPIC, TDA (Trade and Development 
Agency) and the Foreign Commercial Service?

    Answer. The U.S.-Chile FTA has benefitted both our countries. The 
United States has long been the largest source of foreign direct 
investment (FDI) in Chile. According to USTR, Chile is our 28th largest 
goods trading partner with $24 billion in total (two way) goods trade 
during 2015. The United States had a trade surplus of $6.68 billion in 
2015 with Chile. U.S. exports totaled $15.45 billion while imports 
totaled $8.77 billion. U.S.-Chile trade in goods has quadrupled since 
our bilateral FTA entered into force in 2004. Over the past several 
decades, Chile has experienced some of the most robust growth rates in 
the region and is now by many estimates the wealthiest economy in Latin 
America-thanks in large part to its embrace of an economic model 
characterized by openness to trade and investment. TPP provides an 
important opportunity to advance our commercial relationship and 
ensures the United States improves our competitive position in the 
Chilean market.
    Reducing trade transaction costs through trade facilitation reforms 
will assist U.S. exporters and small and medium sized enterprises reach 
new customers in the developing world. The successful conclusion of the 
World Trade Organization (WTO) Trade Facilitation Agreement (TFA) in 
2013 was a major milestone that will help streamline customs 
procedures, increase customs transparency, and speed the flow of goods 
across borders. The United States is a strong proponent of this 
agreement, which according to the Organization for Economic Cooperation 
and Development (OECD), could reduce trade costs by almost 12 percent 
for OECD countries like Chile when fully implemented. If confirmed, I 
will encourage the government of Chile to expeditiously ratify and 
implement the TFA.
    If confirmed, I look forward to working closely with OPIC, the 
Foreign Commercial Service, and the Economic Bureau in the State 
Department to promote trade and support U.S. companies, including, U.S. 
renewable energy companies, defense-sector suppliers, and small and 
medium enterprises. Supporting U.S. businesses in Chile and Chilean 
businesses investing in the United States will increase economic 
opportunity and prosperity for both countries.

    Question.  As the U.S. is deepening its engagement in Central 
America to advance security, governance, and economic growth, we've 
been working closely with partners like Chile, Colombia, and Mexico, 
specifically on issues of police and military training. What is your 
assessment of current cooperation and how might we strengthen it 
further going forward?

    Answer. The State Department has enhanced its efforts to improve 
donor coordination in Central America. As noted, Chile, Colombia, and 
Mexico are key partners in our engagements in the region. We continue 
to strengthen our partnership through exchanges of ideas and best 
practices at donor coordination events in Washington and through 
established mechanisms for programing coordination on the ground in the 
Northern Triangle countries. We are also actively encouraging new 
partners to support the efforts of the Northern Triangle governments.
    Chile takes an active role in Central American security and 
development with specific programs focused on capacity building of 
public administration officials. Chile has also provided training to 
law enforcement and justice sector personnel and supported food safety 
projects. We routinely discuss opportunities for collaboration in 
Central America with our Chilean counterparts at our annual High Level 
Bilateral Political Consultative Mechanism, most recently in December 
2015. If confirmed, I will work closely with USAID and Chile's 
development agency, AGCID, to coordinate activities in Central America.
    Colombia has been a strong partner in building security and law 
enforcement capacity in Central America through training and joint 
military exercises. Colombia hosted Northern Triangle ministers of 
defense and security, as well as U.S. government officials, in mid-June 
to discuss ways to ensure effective cooperation in security and defense 
matters.

    Question.  As the U.S. is working closely with the United Nations 
High Commissioner for Refugees to set up in-region refugee processing 
in Central America, to what degree could we cooperate with Chile to 
help relocate Central American refugees in South America?

    Answer. Chile is working with the U.N. High Commissioner for 
Refugees and other partners to improve the country's refugee 
resettlement program and ensure refugees successfully integrate into 
the country. Chile agreed in 2015 to resettle about 150 Syrian 
refugees. Chile takes an active role in Central American security and 
development, and we look forward to continuing our partnership in the 
region. The State Department asked the Chilean government to consider 
accepting Central American refugees, and if confirmed, I will work 
closely with Chilean authorities to follow up on this request and find 
practical ways for safe humanitarian resettlement of refugees fleeing 
violence.

    Question.  Chile has been on the U.S. Trade Representative's 
``Priority Watch List'' for insufficient intellectual property rights 
protection and enforcement since 2007; why have these concerns still 
not been addressed adequately despite years of bilateral engagement?

    Answer. If confirmed, I will work closely with USTR to do whatever 
I can to ensure the Chilean government addresses the intellectual 
property issues identified in the Special 301 Report. Under the Trans-
Pacific Partnership, Chile has committed to strengthen its IPR regime, 
and I will engage at the highest levels to build political will for 
Chile to make the type of changes required for an improvement in 
Chile's Special 301 designation.

                               __________
                ambassador-designate perez's responses 
                    to questions from senator rubio

    Question.  How important is the Trans-Pacific Partnership to Chile?

    Answer. Over the past several decades, Chile has experienced some 
of the most robust growth rates in the region and is now by many 
estimates the wealthiest economy in Latin America-thanks in large part 
to its embrace of an economic model characterized by openness to trade 
and investment. As such, Chile is a natural fit for TPP and a global 
leader in free trade. Chile is a member of the precursor to TPP (the 
2005 ``P4'' agreement) and has 17 Free Trade Agreements (FTAs). Chile 
already has bilateral FTAs in place with all 11 other TPP countries.
    Chile recognizes the importance of being a rule-setter in the 
global trading system, the need to build upon its existing agreements 
to reflect modern trade issues, and the importance of TPP, which 
creates rules that will make it easier to participate in regional 
supply chains and will foster greater regional integration.
    Economically, Chile stands to gain under TPP over its existing free 
trade agreements-particularly with regard to Japan, Malaysia, and 
Vietnam--through better access for thousands of Chilean products in 
those markets. Major Chilean business groups praised the agreement, 
which is expected to help the agricultural sector, small and medium-
sized businesses, and the growing services sector. Chile also stands to 
gain from TPP's accumulation provisions, which will allow the 
integration of production and supply chains throughout the Asia-Pacific 
region.
    Strategically, TPP positions Chile, Peru, and Mexico in leadership 
roles in a Latin America, which is gradually moving to embrace the 
benefits of liberalized trade and investment. The agreement will allow 
the United States and our TPP partners in the Western Hemisphere to 
build the Americas into a shared, integrated platform for global 
success.
    TPP provides an important opportunity to advance our commercial 
relationship and ensures the United States improves our competitive 
position in the Chilean market. The United States has long been the 
largest source of foreign direct investment (FDI) in Chile, where total 
FDI inflows in 2015 reached nearly $23 billion. U.S.-Chile trade in 
goods has quadrupled since our bilateral FTA entered into force in 
2004.

    Question.  What is your opinion on the economic reforms enacted by 
the Bachelet administration?
    Do you foresee those reforms having an impact in our bilateral 
relations?

    Answer. Chilean President Bachelet campaigned on a platform of 
reforms designed to tackle the problem of income inequality and uneven 
access to services, especially education. She has made good on several 
of her key priorities, including tax reform.
    While Bachelet has been able to enact many of her reforms, the 
legislation passed is often less ambitious than she might have wanted. 
At the present time, Bachelet is continuing her efforts to reform the 
country's pension and education systems, and overhaul the Pinochet-era 
constitution.
    U.S.-Chile cooperation is institutionalized and transcends 
administrations; our cooperation continues to grow under Bachelet's 
leadership. If confirmed, I would continue to advocate for U.S. 
interests to ensure the planned reforms do not unfairly impact U.S. 
businesses and encourage Chile to maintain openness to trade and 
investment, a significant factor in its economic development.

                               __________
                ambassador-designate perez's responses 
                    to questions from senator perdue

    Question.  Since she took office, President Bachelet's approval 
ratings have dropped significantly, most likely due to her reform 
agenda, recent corruption scandals, and a weakening economy. In April 
2016, 65% of Chileans disapproved of President Bachelet's performance 
in office. In addition, the corruption scandals have reinforced public 
perception in Chile that the power in the country is concentrated 
within the hands of a few businessmen and political elites. What 
changes do you foresee in the months ahead that might be taken by the 
president to reverse her current decline in popularity? How do you plan 
to work through the current corruption scandals that have been 
identified? In your opinion, will President Bachelet's anti-corruption 
bills and efforts to regulate political parties and campaign financing 
be enough to reverse people's distrust of the government?

    Answer. U.S.-Chile cooperation is institutionalized and transcends 
administrations; our cooperation continues to grow under President 
Michelle Bachelet's leadership.President Bachelet campaigned on a 
platform of reforms designed to tackle the problem of income inequality 
and uneven access to services, especially education. She made good on 
several of her key priorities, including tax reform.
    While President Bachelet has enacted many of her proposed reforms, 
legislation passed by the parliament to enact the president's goals is 
often less ambitious than she might have wanted. During her remaining 
18 months in office, President Bachelet has said her priorities are to 
reform the country's pension and education systems and to begin the 
overhaul of the Pinochet-era constitution. The Bachelet administration 
hopes its reforms will have a long-lasting impact in reducing 
inequality, particularly by providing higher quality education at 
dramatically reduced costs for Chileans.
    After more than two decades of solid economic growth culminating in 
the highest per capita income levels in Latin America, Chile's economy 
is slowing due primarily to external factors--namely, the fall in 
global copper prices. Copper accounts for half of Chile's exports and 
30 percent of GDP. Fiscal uncertainty and reduced revenue have forced 
prudence in government spending and limited the scale and pace of some 
reforms, for example, free higher education.
    Chile is a model democracy, well-known for its dedication to the 
principles of transparency, freedom of expression, and an independent 
judiciary. It routinely scores high marks for good governance, 
openness, rule-of-law, and was ranked 23 out of 168 countries on 
Transparency International's 2015 Corruption Perceptions Index, the 
second highest in Latin America.
    Chilean authorities are investigating some politicians for 
violating Chile's campaign finance laws, dismissing indicted public 
officials from office, and passing new laws strengthening anti-
corruption measures. Chilean institutions are functioning well to 
enforce the law and address and reduce cases of suspected corruption, 
and political actors across the spectrum are working hard to restore 
trust in the governing class.
    Chilean voters will choose in October 2017 whether to continue 
supporting the center-left's reform agenda, or make way for a center-
right coalition government. If confirmed, I look forward to working 
with President Bachelet and her successor in areas of mutual interest, 
including supporting free trade, human rights, and rule of law.

    Question.  In 2015, our budget surplus in Chile was valued at $6.7 
billion. We are their second largest trading partner behind China. If 
the value of the dollar continues to increase, or in the case of 
another global recession that heavily impacts Chile, how do you see us 
maintaining or increasing our influence to compete with China in 
Chilean markets? In your opinion, can Chile sustain such a massive 
trade imbalance with us?

    Answer. We support Chile's efforts to grow its economy, including 
through trade with other nations. China is an important trading partner 
for Chile as the leading importer of Chilean copper. But after more 
than two decades of solid economic growth, culminating in the highest 
per capita income levels in Latin America, Chile's economy is slowing 
in large part due to a drop in copper prices. Copper accounts for half 
of Chile's exports and 30 percent of GDP. While China's trade with 
Chile is primarily commodities based, the United States and Chile have 
a diverse trade relationship in which small and medium enterprises 
participate. Leading U.S. exports and services to Chile consist 
primarily of high-tech products notably aircraft, machinery, vehicles, 
and intellectual property.
    Chile recognizes the importance of being a rule-setter in the 
global trading system, the need to build upon its existing agreements 
to reflect modern trade issues, and the importance of TPP, which 
creates rules that will make it easier to participate in regional 
supply chains and will foster greater regional integration.
    TPP provides an important opportunity to advance our commercial 
relationship and ensure the United States improves our competitive 
position in the Chilean market. The United States has long been the 
largest source of foreign direct investment (FDI) in Chile, where total 
FDI inflows in 2015 reached nearly $23 billion. U.S.-Chile trade in 
goods has quadrupled since our bilateral FTA entered into force in 
2004.
    If confirmed, I will work tirelessly to identify opportunities for 
U.S. firms to export their goods and services to Chile and to ensure 
U.S. firms have a level playing field in Chile.

    Question.  Given the current security issues that afflict the 
United States today, do you see Chile playing a larger role in 
international security? Given your previous experience with law 
enforcement affairs, how could Chile help in reducing the level of drug 
trafficking within Central America?

    Answer. The United States and Chile have robust, mature military 
and security cooperation. Chile participates in international security 
cooperation throughout the region and globally; expanding bilateral 
security sector cooperation and Chile's role as a partner and role-
model is a U.S. priority. Chile has over 400 personnel deployed 
worldwide, most in the U.N. Stabilization Mission in Haiti (MINUSTAH). 
Chile deploys with other regional partners, such as El Salvador and 
Honduras, and provides those countries with specialized training prior 
to their deployments. For example, Chile trained El Salvador 
peacekeepers on aviation maintenance training for their deployment to 
Mali. Chile announced in 2015 a plan to deploy staff officers, 
helicopters, engineers, and a medical unit to an African peacekeeping 
mission over a three-year period. In January 2016, Chile deployed four 
advisors to the U.N. Mission in the Central African Republic as the 
first phase of this plan.
    Chile takes counterterrorism seriously and has an inter-ministerial 
working group on counter terrorism issues. We commend Chile for their 
support at the UNSC for a counter-Da'esh resolution. In August 2015, 
the United States and Chile cosponsored a meeting of UNSC members 
condemning Da'esh attacks on LGBT persons. If confirmed, I would work 
closely with Chile in areas where our interests align (refugees, 
humanitarian relief), and promote continued coordination in 
multilateral organizations such as the U.N.
    Further, Chile takes an active role in Central American security 
and development, and we look forward to continuing our partnership with 
Chile in the region. It continues to teach at the International Law 
Enforcement Academy (ILEA) in El Salvador, educating police officers, 
prosecutors, judges, and other criminal justice practitioners from 
Central and South America and the Caribbean. We applaud Chile's 
International Cooperation Agency for Development, AGCID (Agencia 
Chilena de Cooperaci"n Internacional para el Desarrollo) for their 
projects in Central America to strengthen government institutions and 
improve governance, especially in the Northern Triangle. If confirmed, 
I would look for ways the United States and Chile could leverage our 
2009 and 2014 trilateral cooperation agreements to undertake 
development projects in Central America and the Caribbean to enhance 
citizen security. These projects could include an expansion of Chile's 
role in law enforcement training and rule of law cooperation with 
Central American partners.

    Question.  As of 2014, the accumulated stock of U.S. foreign direct 
investment in Chile was $27.6 billion. The accumulated stock of Chilean 
foreign investment in the United States was $730 million. A bi-lateral 
income tax treaty (Treaty Doc. 112-8) would provide certainty on the 
tax treatment of investors and reduce tax barriers to investment. The 
Senate Foreign Relations Committee reported the treaty as favorable in 
February 2016, but it has not yet been considered by the full Senate. 
In your opinion, does this treaty seem like an effective way to 
encourage trade between our two countries? Is there anything you would 
like to add regarding this treaty that may lock in a successful vote 
from the full Senate body.

    Answer. The administration continues to support the double taxation 
treaty and hopes it moves quickly through the Senate. Without the 
treaty's passage, U.S. businesses investing in Chile face higher taxes 
in Chile that will place them at a competitive disadvantage vis-a-vis 
firms from other countries with bilateral tax treaties in place. The 
proposed tax treaty with Chile would be the first between the United 
States and Chile. The Department of Treasury actively pursues 
opportunities to establish new tax treaty relationships with countries 
in which U.S. businesses encounter unrelieved double taxation with 
respect to their investments.
    The Departments of State and Treasury are aware of the keen 
interest of both the business community and the Senate to conclude 
income tax treaties that provide meaningful benefits to cross-border 
investors with South American countries. If approved by the Senate, the 
tax treaty with Chile would be the second U.S. tax treaty in force with 
a South American country. Thus, the proposed tax treaty with Chile 
represents a significant inroad into the South American region.
    If confirmed, I will support this and other measures to encourage 
Chilean companies to invest in the United States, reduce the burdens on 
U.S. businesses investing in Chile, and increase economic cooperation 
and prosperity for both countries.

                               __________



                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                              ----------                              

Hon. Sung Y. Kim, of California, nominated to be Ambassador to 
        the Republic of the Philippines
Rena Bitter, of Texas, nominated to be Ambassador to the Lao 
        People's Democratic Republic
Amala Shirin Lakhdhir, of Connecticut, nominated to be 
        Ambassador to Malaysia
                              ----------                              


    The committee met, pursuant to notice, at 11:41 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner 
presiding.
    Present: Senators Gardner [presiding], Rubio, Cardin, and 
Menendez.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order. Let me 
welcome you all to today's full Senate Foreign Relations--not 
everyone gives up the gavel that easy. So that is good. 
[Laughter.]
    Senator Gardner. Let me welcome you all to today's full 
Senate Foreign Relations Committee hearing on nominations.
    I want to thank Senator Cardin and his staff for their 
great cooperation in making this happen today. We have a great 
panel of three well-qualified nominees today to serve in 
Philippines, Malaysia, and Laos, all nations that are 
strategically and economically important to U.S. security and 
economic interests.
    I want to thank them and their families as well for their 
willingness to serve. I have had the opportunity meet and speak 
with you privately and appreciate your time today, and this is 
truly a family commitment and sacrifice, and we all greatly 
appreciate your service to your country and the work that you 
are doing.
    I will reserve my time for questions, and I ask our 
nominees to keep their opening remarks to no more than 5 
minutes.
    With that, I turn to Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. Thank you 
for accommodating this hearing.
    As you know, we are scheduled to recess this week, and it 
has been extremely challenging to get hearings scheduled. And I 
personally want to thank Senator Gardner for going out of his 
way to arrange for this hearing so that we could get these 
three nominees through the hearing process of a confirmation 
before recess, and we appreciate it very, very much.
    I think it is, first, all three of you are career, and we 
thank you for that, for giving your service on behalf of our 
country. It is critically important to our national security 
and American interests, and we thank you for your public 
service.
    But as Senator Gardner said, it is a family sacrifice. So 
we know that your family is part of the service that has been 
given to our country. So we thank the family members that are 
here for their understanding and their support for the missions 
that each of you have done.
    I would just make a very brief comment that all three of 
the countries are very relevant to the matters that have been 
before the Senate Foreign Relations Committee this week. In the 
trafficking in persons, I can assure you that you are going to 
get questions in regards to Malaysia and its failure to get to 
an acceptable level on dealing with trafficking in persons and 
what our mission will do in order to further our objective to 
end modern-day slavery.
    In regards to the Philippines, you could not have a more 
timely follow-up from today's hearings as we talked about the 
Law of the Sea decision with China. And with Laos, we have the 
chair of--the country that chairs the ASEAN this year.
    So it is three countries that are extremely timely to the 
hearings we have had this week, but very important to U.S. 
interests not only in the Asian Pacific, but globally.
    I look forward to your testimony and again thank you for 
your appearance.
    Senator Gardner. Thank you, Senator Cardin.
    We will now turn to our nominees. Ambassador Sung Kim is 
our nominee to the Philippines. He is a career member of the 
Foreign Service and since 2014 serves as Special Representative 
for North Korea Policy and Deputy Assistant Secretary in the 
Bureau of East Asia and Pacific Affairs at Department of State. 
From 2011 to 2014, he served as U.S. Ambassador to the Republic 
of Korea and from 2008 to 2011 as Special Envoy for the Six-
Party Talks.
    Welcome, Ambassador Kim, and please proceed with your 
testimony.

 STATEMENT OF HON. SUNG Y. KIM, OF CALIFORNIA, NOMINATED TO BE 
         AMBASSADOR TO THE REPUBLIC OF THE PHILIPPINES

    Ambassador Kim. Thank you very much, Mr. Chairman.
    Mr. Chairman, Ranking Member Cardin, Senator Menendez, I am 
deeply honored to appear before you today as the President's 
nominee to be the U.S. Ambassador to the Republic of the 
Philippines.
    I am grateful to the President and Secretary Kerry for 
placing their trust in me, and if confirmed, I look forward to 
working very closely with this committee to strengthen our 
already-strong relationship with the Philippines.
    I would like to begin by thanking my family and the many 
friends and colleagues who have been an incredible source of 
support and inspiration for me throughout my life and career. 
Some of them are here today.
    Unfortunately, my wife, Jae, and our two daughters, Erin 
and Erica, could not be here today. Erin and Erica apparently 
have something more important to do. They are busy with summer 
activities overseas, but they assure me that they are watching 
C-SPAN for the very first time in their lives. [Laughter.]
    Ambassador Kim. They are very proud and excited about the 
prospect of helping me represent the United States in the 
Republic of the Philippines.
    Mr. Chairman, just a couple of years ago, as you mentioned, 
I had the privilege of representing our country as the first 
Korean-American U.S. Ambassador to Korea, and it was incredibly 
special to return to my country of birth, one of our closest 
allies, as the U.S. Ambassador. In fact, my mother, my 86-year-
old mother, still cries whenever she thinks about that 
experience.
    And now I am thrilled that, if confirmed, I will have the 
honor of representing our country in the Philippines, our 
oldest ally in the region and one of our most special partners.
    I am also honored to follow the many distinguished 
diplomats who have served in Manila. One of them was my mentor 
and friend, Steve Bosworth. As you may know, Ambassador 
Bosworth sadly passed away earlier this year, but I know that 
he would be very proud that one of his mentees will have an 
opportunity to build on what he and our other outstanding 
Ambassadors accomplished in the Philippines.
    The U.S. and the Philippines are longstanding friends, 
partners, and allies. Indeed, this is a relationship defined 
and reinforced by deep people-to-people ties. There are over 4 
million Filipinos and Filipino Americans in the United States, 
and more than 220,000 Americans reside in the Philippines. And 
together, they help build the bonds that unite and strengthen 
our two countries.
    As we mark the 70th anniversary of U.S.-Philippines 
diplomatic relations, we celebrate our common history of shared 
sacrifice, values, and interests. We have stood together during 
World War II to fight tyranny and defend democratic values. And 
since the signing of the Mutual Defense Treaty in 1951, our 
commitment to the defense of the Philippines has remained 
ironclad, unwavering, and strong.
    Earlier this year, our security partnership entered an 
exciting new phase with the implementation of the Enhanced 
Defense Cooperation Agreement. This important agreement will 
allow for greater rotational access by U.S. forces in the 
Philippines. It will also expand the opportunities for 
bilateral training, and most exciting, it will support the 
long-term modernization of Philippines Armed Forces.
    Our security cooperation with the Philippines also enhances 
efforts to combat transnational crime and terrorism. The 
Philippines Armed Forces, police, and other law enforcement 
agencies continue to make progress in fighting violent 
extremists. They arrest and prosecute members of terrorist 
groups, including Abu Sayyaf group.
    We work closely with the Philippines government to ensure 
that its forces are trained to uphold human rights and the rule 
of the law in the conduct of their law enforcement operations. 
If confirmed, I will work closely with Philippines President 
Duterte and his administration to ensure that our security 
cooperation remains strong and effective. This includes 
supporting Philippines efforts to peacefully resolve the South 
China Sea dispute, and we are also helping the Philippines 
Armed Forces better monitor the seas off their shores.
    The U.S. is among the Philippines' top trading partners, 
and we have traditionally been the Philippines' largest foreign 
investor. Annual U.S. goods and services trade with the 
Philippines total over $25 billion. If confirmed, I will 
continue our economic engagement to support reform efforts and 
expand trade and investment to the benefit of both countries.
    Beyond security and trade, we are also partnering with the 
Philippines on climate change and other many important global 
challenges. Mr. Chairman, if confirmed, I look forward to 
leading our great embassy team of over 1,700 Americans and 
local Filipinos who are working tirelessly to advance the 
special partnership between our two countries.
    I appreciate the opportunity to appear before you today. I 
look forward to your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Kim follows:]


                     Prepared Statement of Sung Kim

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the President's nominee to be United States 
Ambassador to the Republic of the Philippines. I am grateful to the 
President and Secretary Kerry for placing their confidence in me and if 
confirmed, I look forward to working closely with this committee to 
advance our strong relationship with the Philippines.
    With the Chairman's permission, I would like to begin by thanking 
the many friends and colleagues who have played an essential role in my 
career--some of them are here today. Unfortunately my wife Jae and our 
two daughters Erin and Erica could not join us today. Erin and Erica 
are busy with summer activities overseas, but I know they are proud and 
excited about the prospect of helping me represent the United States in 
the Philippines. My family, friends, and colleagues have all been a 
source of tremendous support and inspiration.
    Mr. Chairman, just a couple of years ago, I had the privilege of 
representing our country as the first Korean-American U.S. Ambassador 
to the Republic of Korea. It was incredibly special to return to my 
country of birth, and one of our closest allies, as the U.S. 
Ambassador. And now I am thrilled that, if confirmed, I will have the 
honor of representing our country in the Philippines, our oldest ally 
in the region and one of our most special partners.
    I am also honored to follow the many distinguished diplomats who 
served in Manila. One of them was my mentor and friend Steve Bosworth. 
Ambassador Bosworth sadly passed away earlier this year but I know he 
would be very proud that one of his mentees will have an opportunity to 
build on what he and our other outstanding ambassadors accomplished. 
The United States and the Philippines are longstanding friends, 
partners, and allies. Indeed, this is a relationship defined and 
reinforced by deep people-to-people ties. There are over four million 
Filipinos and Filipino Americans in the United States and more than 
220,000 Americans residing in the Philippines. And together they help 
build the bonds that unite and strengthen our two countries.
    As we mark the 70th anniversary of formal U.S.-Philippine 
relations, we celebrate our common history of shared sacrifice, values, 
and interests. We stood together during World War II to fight tyranny 
and defend democratic values. And since the signing of the Mutual 
Defense Treaty in 1951, our commitment to the defense of the 
Philippines has remained ironclad and unwavering.
    Earlier this year, our security partnership entered an exciting new 
phase with the implementation of the Enhanced Defense Cooperation 
Agreement. This important agreement will allow for greater rotational 
access by U.S. forces in the Philippines. It will expand the 
opportunities for bilateral training, support the long-term 
modernization of the Armed Forces of the Philippines, and help the 
United States to rapidly respond to natural disasters.
    Our security cooperation with the Philippines also enhances efforts 
to combat transnational crime and terrorism. The Philippine Armed 
Forces, police, and other law enforcement agencies are making progress 
in fighting violent extremists, and continue to arrest and prosecute 
members of terrorist groups, including the Abu Sayyaf Group. We work 
closely with the Philippine government to ensure that its forces are 
trained to uphold human rights and the rule of law in the conduct of 
their law enforcement operations.
    If confirmed, I will work with Philippine President Duterte and his 
new administration to ensure our security cooperation remains strong 
and effective. This includes supporting Philippine efforts to 
peacefully reduce tensions in the South China Sea and help the 
Philippine Armed Forces better monitor the seas off their shores.
    The United States is among the Philippines' top trading partners, 
and we have traditionally been the country's largest foreign investor. 
Annual U.S. goods and services trade with the Philippines total well 
over $20 billion. If confirmed, I will continue our economic engagement 
to the benefit of both countries through support for reforms that we 
hope will open the door to more U.S. investment. This includes 
encouraging the Philippines to reduce restrictions on foreign 
ownership, enforce intellectual property rights, and make it easier for 
U.S. firms to participate in public-private partnerships. I will also 
work with ongoing Millennium Challenge Corporation and USAID efforts to 
ensure inclusive and sustainable economic growth.
    Beyond security and trade, we are also partnering with the 
Philippines on climate change and other important global challenges.
    Mr. Chairman, if confirmed, I look forward to leading the dedicated 
Embassy team of Americans and local Filipinos who are working 
tirelessly to advance the special U.S.-Philippines partnership.
    I appreciate the opportunity to appear before you today and am 
pleased to answer your questions.


    Senator Gardner. Thank you, Ambassador.
    Ms. Rena Bitter is our nominee to the Lao People's 
Democratic Republic, commonly known as Laos. She is a career 
member of the Foreign Service and since 2013 has served as 
Consul General at the U.S. Consulate General in Ho Chi Minh 
City, Vietnam.
    Welcome, Ms. Bitter. Please proceed.

STATEMENT OF RENA BITTER, OF TEXAS, NOMINATED TO BE AMBASSADOR 
            TO THE LAO PEOPLE'S DEMOCRATIC REPUBLIC

    Ms. Bitter. Thank you.
    Chairman Gardner, Ranking Member Cardin, and Senator 
Menendez, thank you for the opportunity to appear before you as 
President Obama's nominee to be the Ambassador to the Lao 
People's Democratic Republic.
    I am deeply honored to be here with you today and grateful 
to the President and to Secretary Kerry for the confidence they 
have placed in me.
    I am joined by several family members and colleagues, and I 
am grateful for the support that they have shown me throughout 
my career and also for the kindness you have shown them here 
today, Senator. Thank you.
    Today, the U.S.-Lao relationship is at its most dynamic in 
40 years. Secretary Kerry has visited Laos once already this 
year, and he will return later this month. President Obama's 
September trip will mark the first ever by a sitting U.S. 
President, and it promises to open new avenues of cooperation 
and communication in our bilateral relationship. If confirmed, 
I would look forward to pursuing these opportunities.
    I have been privileged to serve my country for 22 years as 
a Foreign Service officer, most recently as Consul General in 
Ho Chi Minh City. During my 3 years there, I saw how much 
progress two very different nations can make when working 
together on areas of common interest.
    If confirmed, I would seek to work with the Lao government 
and people to find more areas in which our goals align so we 
can build a broad-based relationship that addresses the 
challenges of the 21st century.
    However, for our path toward a 21st century relationship to 
remain on firm footing, we must continue our work to put the 
problems of the 20th century behind us. For more than 30 years, 
humanitarian cooperation, particularly work to ensure the 
fullest possible accounting for our missing service personnel 
and war legacy assistance, particularly the removal of 
unexploded ordnance, have been at the center of our bilateral 
relationship.
    Thanks to your support and the support of your colleagues 
in Congress, we have invested almost $100 million in 
conventional weapons destruction programs since 1993, leading 
to a reduction in casualties from more than 300 per year to 
fewer than 50 during the last 3 years. If confirmed, I want to 
work with you and our partners in Laos to bring the number of 
casualties down to zero and to close the door on this history 
for both of our countries.
    At the same time, we must find ways to invest in the 
future. Laos' progress and ability to be a strong partner for 
the United States and a confident member of ASEAN will depend 
on improving the well-being and economic status of its people.
    Nutrition-related health problems remain prevalent in Laos, 
with stunting impacting more than 60 percent of children in 
some areas. Through university partnerships, targeted 
nutritional projects, and school meal programs, our assistance 
to our Lao partners has sought to improve the nutritional 
status of women and children to deliver a healthier, fuller 
future for the people of Laos.
    If confirmed, Lao economic development will also be a 
priority. With a consistent 7 to 8 percent GDP growth rate over 
the past decade, Laos has one of the fastest-growing economies 
in East Asia. To continue and to expand the benefits of this 
growth, it will be key for Laos, both individually and within 
the context of ASEAN, to support education and to facilitate 
the adoption of a rules-based, high-standard regional economic 
and trade architecture.
    If confirmed, I would also seek to prioritize our people-
to-people ties. Laos has the third-highest per capita 
membership in our Young Southeast Asian Leaders Initiatives, 
suggesting that the young people of Laos, its future decision-
makers, are interested in learning more about the American 
people and American values. With 70 percent of the Lao 
population under the age of 30, these youth outreach programs 
are truly building bridges to the next generation of Lao 
leaders.
    However, in spite of these partnerships, we continue to 
have concerns about Laos' human rights records and restriction 
on civil society. Currently, Laos places onerous registration 
requirements on civil society organizations, leading to the 
delay or cancellation of many worthwhile projects.
    In December 2012, civil society leader Sombath Somphone was 
abducted at a police checkpoint and subsequently disappeared. 
The Lao government has yet to complete a full investigation. If 
confirmed, I would push for transparency in such investigations 
and encourage the authorities to embrace the vital role that 
civil society plays in the development of a thriving, 
prosperous country.
    Freedom of religion is also a fundamental right, and if 
confirmed, I will work with the government to ensure the 
freedom of the Lao people to worship according to their 
beliefs.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to appear before you today. I am happy to 
answer your questions, and if confirmed, I look forward to 
working with you to advance U.S. interests in Laos and to 
welcoming you to our embassy in Vientiane.
    Thank you.
    [The prepared statement of Ms. Bitter follows:]

                   Prepared Statememnt of Rena Bitter

    Chairman Gardner, Ranking Member Cardin, and members of the 
committee, thank you for the opportunity to appear before you as 
President Obama's nominee to be the U.S. Ambassador to the Lao People's 
Democratic Republic. I am deeply honored to be here with you today, and 
grateful to the President and to Secretary Kerry for the confidence 
they have placed in me. I am joined by several family members and 
colleagues, and I have been blessed with their support throughout my 
career.
    Today, the U.S.-Lao relationship is at its most dynamic in forty 
years. Secretary Kerry has visited Laos once already this year--only 
the second visit by a Secretary of State since 1955--and he will return 
this month for the ASEAN Regional Forum and other key regional 
meetings, followed in September by President Obama's historic trip for 
the East Asia Summit, U.S.-ASEAN Summit, and a bilateral visit. 
President Obama's visit will mark the first ever by a sitting U.S. 
President and it promises to open new avenues of cooperation and 
communication in our bilateral relationship. If confirmed, I would look 
forward to pursuing these opportunities.
    I have been privileged to serve my country for 22 years as a 
Foreign Service Officer across Latin America, Europe, the Middle East, 
and Asia and in Washington. Most recently I served as Consul General in 
Ho Chi Minh City, Vietnam. During my three years there, I saw how much 
progress two very different nations can make when working together on 
areas of common interest. If confirmed, I would seek to work with the 
Lao government and people to find more areas in which our goals align, 
so we can build a broad-based relationship that addresses the 
challenges of the 21st century.
    For our path toward a 21st century relationship to remain on firm 
footing, however, we must continue our work to put the problems of the 
20th century behind us. For more than 30 years, humanitarian 
cooperation--particularly the work to ensure the fullest possible 
accounting for our missing--and legacy of war assistance, such as the 
removal of unexploded ordnance, have been at the center of the 
bilateral relationship. On the unexploded ordnance assistance, thanks 
to your support and the support of your colleagues in Congress, we have 
invested almost $100 million in Conventional Weapons Destruction 
Programs since 1993, with $19.5 million allocated for FY16. This 
assistance has led to a reduction in casualties from more than 300 per 
year, to fewer than 50 during the last three years. As Secretary Kerry 
said when he visited Laos in January, ``we can't heal the wounds, but 
we can and must do more so that others do not suffer the same fate.'' 
If confirmed, I want to work with you and our partners in Laos to bring 
the number of casualties down to zero so we can close the door on this 
history for both of our countries.
    At the same time, we must find ways to invest in the future. Laos' 
progress and ability to be a strong partner for the United States and a 
confident member of ASEAN will depend on improving the well-being and 
economic status of its people. Nutrition-related health problems remain 
prevalent in Laos, with stunting impacting more than 60 percent of 
children in some areas. In an effort to tackle comprehensively this 
serious developmental impediment, last October Deputy National Security 
Advisor Ben Rhodes while visiting Laos signed a Statement of Intent 
with the Ministry of Health and the Oregon Health and Science 
University to establish a new Lao-American Nutrition Institute (LANI). 
LANI will complement the Lao government's nutrition efforts by helping 
to develop local solutions for this health priority. Further, the USDA 
McGovern-Dole School Feeding Program will fund $27 million over three 
years for World Food Program meal projects in schools across Laos, a 
program that has already dramatically increased school attendance. 
Finally, USAID recently awarded $5.58 million over three years to Save 
the Children to improve the nutritional status of women and children in 
targeted areas. If confirmed, I look forward to seeing these 
initiatives deliver a healthier, fuller future to the children of Laos.
    Lao economic development has also been a priority for the U.S. 
Department of State and, if confirmed, will be a priority for me as 
well. With a consistent 7 to 8 percent GDP growth rate over the past 
decade, Laos has one of the fastest growing economies in East Asia. To 
continue and expand the benefits of this growth, it will be key for 
Laos individually and within the context of ASEAN to support education 
and facilitate the adoption of a rules-based, high-standard regional 
economic and trade architecture. I hope to continue to cultivate 
relationships between our two private sectors and to carry on the work 
that the U.S. Embassy in Vientiane has undertaken to increase trade.
    If confirmed, I would also seek to prioritize our people-to-people 
ties. Laos has the third highest per capita membership in our Young 
Southeast Asian Leaders' Initiative, suggesting that the young people 
of Laos--its future decision makers--are interested in learning more 
about the American people and American values. With 70 percent of the 
Lao population under 30, these youth outreach programs are truly 
building a bridge to the future leaders of Laos.
    In spite of these partnerships, we continue to have concerns about 
Laos' human rights record and restrictions on civil society. Currently, 
Laos places onerous registration requirements on civil society 
organizations, leading to the delay or cancellation of many worthwhile 
projects. Civil society leaders have also been subject to efforts to 
silence or sideline their voices. In December 2012, Sombath Somphone 
was abducted at a police checkpoint and subsequently disappeared; the 
Lao government has yet to complete a full investigation. If confirmed, 
I would push for transparency in such investigations and encourage 
authorities to embrace the vital role that civil society plays in the 
development of a thriving, prosperous country. Freedom of religion is a 
fundamental human right and, if confirmed, I will work with the 
government to ensure the freedom of the Lao people to worship according 
to their beliefs.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to appear before you today. I'm happy to answer your 
questions and, if confirmed, I look forward to working with you to 
advance U.S. interests in Laos and welcoming you to our Embassy in 
Vientiane.


    Senator Gardner. Thank you for your testimony.
    Our next nominee is--Ms. Kamala Shirin Lakhdhir is our 
nominee to Malaysia. She is a career member of the Foreign 
Service and from 2011 to 2015 served as the Executive Assistant 
to the Under Secretary of State for Political Affairs.
    Ms. Lakhdhir served as the U.S. Consul General in Belfast, 
Northern Ireland, from 2009 to 2011 and as the Director of the 
Office of Maritime Southeast Asia from 2007 to 2009 and as the 
Special Assistant to the Assistant Secretary of State for East 
Asian and Pacific Affairs from 2005 to 2006.
    Welcome, Ms. Lakhdhir, and look forward to your comments.

STATEMENT OF KAMALA SHIRIN LAKHDHIR, OF CONNECTICUT, NOMINATED 
                  TO BE AMBASSADOR TO MALAYSIA

    Ms. Lakhdhir. Thank you very much.
    Mr. Chairman, Ranking Member Cardin, and Senator Menendez, 
it is an honor to appear before you today as the President's 
nominee to be the U.S. Ambassador to Malaysia.
    I am grateful to the President and Secretary Kerry for the 
trust they have placed in me. If confirmed, I look forward to 
working with this committee.
    I would like to thank my State Department mentors and 
colleagues, some of whom are here today, who have supported, 
advised, and educated me during my soon-to-be 25 years in the 
Foreign Service. I am particularly pleased to appear before you 
today with two good friends and colleagues.
    With your permission, Mr. Chairman, I would also like to 
recognize my brother, who is here today, and my parents, Ann 
and Noor Lakhdhir, who are watching in Connecticut. My father 
was born in Bombay, India, in 1925, and came to the United 
States to attend the University of California-Berkeley through 
the miracle of a full scholarship.
    When he moved to New York a few years later, he met my 
mother, who was there studying for a master's degree in 
international relations. I am proud that some of my mother's 
ancestors arrived in Massachusetts and Connecticut in the 1600s 
and that my father became an American citizen a month after I 
was born. My parents' lives, interests, and strong belief in 
American values inspired me to enter the Foreign Service.
    If I am confirmed, the President and the Senate will 
entrust me with the responsibility to lead an embassy community 
of more than 120 Americans from 8 U.S. Government agencies, 
their families, and close to 200 locally employed staff. My 
foremost commitments will be to the security of the embassy 
personnel and their families and to the effective pursuit of 
U.S. national interests.
    Malaysia has undergone an extraordinary transformation over 
the past six decades. Its society, economy, and regional and 
global influence have developed at an amazing pace. Its foreign 
policy has evolved from establishing pragmatic relations with 
neighbors to playing an active leadership role in ASEAN, a body 
it helped to establish.
    At the same time, the governments of the United States and 
Malaysia have also deepened and broadened our bilateral 
cooperation, which President Obama and Prime Minister Najib 
elevated to a comprehensive partnership just over 2 years ago.
    The United States and Malaysia have longstanding trade and 
investment ties. U.S. companies pioneered the electrical and 
electronics industry in Malaysia in the 1970s, and they remain 
the largest investor in Malaysia's top-earning export sector.
    Bilateral trade continues to grow, exceeding $46 billion in 
2015. If Congress approves the Trans-Pacific Partnership, our 
economic ties to the region and with Malaysia are expected to 
further increase and diversify.
    Malaysia and the United States have also greatly expanded 
defense and law enforcement cooperation in order to ensure the 
safety and security of the peoples of both our countries. 
Malaysia takes very seriously the growing influence of ISIL, as 
well as the ongoing threat to Malaysian and foreign citizens in 
Eastern Sabah by the Abu Sayyaf group.
    Bilaterally, with Malaysia and through ASEAN, we are 
working more closely than ever before to counter violent 
extremist narratives to keep our borders and skies safe and to 
crack down on transnational crime. If confirmed, I will also 
support Malaysia's ongoing efforts to reduce tensions in the 
South China Sea by building global regional consensus and 
encouraging a peaceful resolution of disputes.
    The United States remains deeply concerned about human 
rights, the rule of law, transparency, and governance in 
Malaysia. Freedom of expression is a cornerstone of 
representative government, and we look to Malaysia's leaders to 
live up to the highest democratic standards.
    If confirmed, I will also be fully dedicated to pressing 
Malaysia to achieve its commitments to combat trafficking in 
persons. This includes taking concrete steps to root out forced 
labor and debt bondage, whether in the domestic, plantation, 
construction, or manufacturing sectors. This effort is 
fundamentally a government and law enforcement responsibility, 
but the Malaysian people and civil society play a critical 
role.
    In the last year, Malaysia passed legislation and 
regulations that, if enforced, support a victim-focused 
protection regime. If confirmed, I am committed to pressing for 
the law's effective implementation.
    For the last six decades, the peoples of the United States 
and Malaysia have formed close bonds across a range of common 
concerns. If confirmed, my highest aim will be to sustain and 
expand these ties in civil society, business, education, public 
health, environmental protection, and rule of law, among 
others.
    In particular, with over 50 percent of the population under 
the age of 25, I look forward to engaging Malaysian young 
people to expand their understanding of the United States, 
highlight our shared values, and work on solutions to common 
challenges.
    Thank you very much for this opportunity to appear before 
you today. I am pleased to answer your questions.
    [The prepared statement of Ms. Lakhdhir follows:]


              Prepared Statement of Kamala Shirin Lakhdhir

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as the President's nominee to be the U.S. Ambassador 
to Malaysia. I am grateful to the President and Secretary Kerry for the 
trust they have placed in me. If confirmed, I look forward to working 
with this committee. I would like to thank my State Department mentors 
and colleagues, some of whom are here today, who have supported, 
advised, and educated me during my soon-to-be twenty-five years in the 
Foreign Service. I am particularly pleased to appear before you today 
with two good friends and colleagues.
    With your permission Mr. Chairman, I would also like to recognize 
my brother, who is here today, and my parents, Ann and Noor Lakhdhir, 
who are watching in Connecticut. My father was born in Bombay, India in 
1925 and came to the United States to attend the University of 
California Berkeley through the miracle of a full scholarship. When he 
moved to New York a few years later, he met my mother, who was there 
studying for a master's degree in international relations. I'm proud 
that some of my mother's ancestors arrived in Massachusetts and 
Connecticut in the 1600s, and that my father became an American citizen 
a month after I was born. My parents' lives, interests, and strong 
belief in American values inspired me to enter the Foreign Service.
    If I am confirmed, the President and the Senate will entrust me 
with the responsibility to lead an Embassy community of more than 120 
Americans from eight U.S. government agencies, their families, and 
close to 200 locally employed staff. My foremost commitments will be to 
the security of the Embassy personnel and their families, and to the 
effective pursuit of U.S. national interests.
    Malaysia has undergone an extraordinary transformation over the 
past six decades. Its society, economy, and regional and global 
influence have developed at an amazing pace. Its foreign policy has 
evolved from establishing pragmatic relations with neighbors to playing 
an active leadership role in ASEAN, a body it helped to establish.
    At the same time, the governments of the United States and Malaysia 
have also deepened and broadened our bilateral cooperation, which 
President Obama and Prime Minister Najib elevated to a Comprehensive 
Partnership just over two years ago. The United States and Malaysia 
have long-standing trade and investment ties. U.S. companies pioneered 
the electrical and electronics industry in Malaysia in the 1970s and 
they remain the largest investors in Malaysia's top earning export 
sector. Bilateral trade continues to grow, exceeding $46 billion in 
2015. If Congress approves the Trans-Pacific Partnership, our economic 
ties to the region and with Malaysia are expected to further increase 
and diversify.
    Malaysia and the United States have also greatly expanded defense 
and law enforcement cooperation in order to ensure the safety and 
security of the peoples of both our countries. Malaysia takes very 
seriously the growing influence of ISIL, as well as the ongoing threat 
to Malaysian and foreign citizens in Eastern Sabah by the Abu Sayyaf 
Group. Bilaterally with Malaysia and through ASEAN, we are working more 
closely than ever before to counter violent extremist narratives, to 
keep our borders and skies safe, and to crack down on transnational 
crime.If confirmed, I will also support Malaysia's ongoing efforts to 
reduce tensions in the South China Sea by building regional consensus 
and encouraging a peaceful resolution of disputes.
    The United States remains deeply concerned about human rights, the 
rule of law, transparency, and governance in Malaysia. Freedom of 
expression is a cornerstone of representative government, and we look 
to Malaysia's leaders to live up to the highest democratic standards. 
If confirmed, I will also be fully dedicated to pressing Malaysia to 
achieve its commitments to combat trafficking in persons. This includes 
taking concrete steps to root out forced labor and debt bondage, 
whether in the domestic, plantation, construction, or manufacturing 
sectors. This effort is fundamentally a government and law enforcement 
responsibility, but the Malaysian people and civil society play a 
critical role. In the last year, Malaysia passed legislation and 
regulations that, if enforced, support a victim-focused protection 
regime. If confirmed, I am committed to pressing for the law's 
effective implementation.
    Mr. Chairman, for the last six decades, the peoples of the United 
States and Malaysia have formed close bonds across a range of common 
concerns. If confirmed, my highest aim will be to sustain and expand 
these ties in civil society, business, education, public health, 
environmental protection, and rule of law, among many others. In 
particular, with over 50 percent of the population under the age of 25, 
I look forward to engaging Malaysian young people, to expand their 
understanding of the United States, highlight our shared values, and 
work on solutions to common challenges that we all face.
    Thank you very much for this opportunity to appear before you 
today. I am pleased to answer your questions.


    Senator Gardner. Thank you, Ms. Lakhdhir.
    And I will begin with the questions. Ambassador Kim, to 
you, you just heard Admiral Blair and Dr. Campbell talk about 
the very good outcome from the tribunal hearing at the tribunal 
yesterday. But also would like your opinion on how you see your 
role working with the Duterte administration in the 
Philippines, what you believe--to implement the decision and 
what you believe the administration's intentions are in terms 
of bilateral, possible bilateral negotiations with China in 
light of this decision.
    Ambassador Kim. Thank you very much, Mr. Chairman.
    Let me first start by saying I read your and Ranking Member 
Cardin's statements regarding the decision yesterday, and I 
found them very compelling. And in fact, I agree with many of 
the key points that both of you made in those statements.
    With regards to my role, I mean, obviously, this will be 
one of the most important challenges going forward. One of the 
key issues that I would focus on as Ambassador, if confirmed by 
your committee.
    The Philippines issued what I thought was a straightforward 
and positive statement regarding the ruling. As you pointed 
out, Mr. Chairman, this is an important decision, and this is 
an important moment for all of the claimants involved. And I 
think the Philippines has made very clear, President Duterte 
himself included, has made very clear that they are committed 
to pursuing a peaceful resolution of the dispute. They continue 
to act responsibly, consistent with international norms and 
practices in law.
    So I think our role and my role should be to support that 
effort. In fact, I think this decision gives us a real 
opportunity for the parties to seek a peaceful resolution 
according to rule of law, and that has been our consistent 
position, and I look forward to supporting that efforts.
    With regards to the possible bilateral negotiation between 
the Philippines and China, I think we have been very clear that 
we would support bilateral negotiations that are free from 
undue pressure and coercion. Now some aspects of the South 
China dispute cannot be resolved bilaterally, but if the 
Philippines and China decide that they have a way forward in 
terms of meaningful, productive bilateral negotiations free 
from coercion and undue pressure, I think we would support that 
effort.
    Senator Gardner. Thank you, and I will reserve my questions 
for the other gentleman to use.
    Senator Cardin?
    Senator Cardin. I want to again thank all three of the 
nominees.
    Ambassador Kim, you mentioned the human rights challenges 
in Philippines. I appreciate you mentioning that. All three of 
you mentioned the human rights issues.
    In the Philippines, several human rights groups are 
concerned with the potential rise of extrajudicial killings. 
Can you tell me what steps you think we need to take to 
reinforce the Philippines' commitment to the basic core human 
rights commitments?
    Ambassador Kim. Thank you very much, Senator.
    Human rights has been and will continue to be an important 
area of cooperation and focus for our relations with the 
Philippines. We have had concerns about extrajudicial killings, 
and this is something that I would like to focus on as soon as 
I arrive in Manila.
    Part of our effort to counter any such activity is to make 
sure that when we cooperate with the Philippines, whether it is 
the military or law enforcement, that human rights training is 
an integral part of any such effort. In fact, that has 
continued for some time. And I think we have seen results of 
such effort, that there has been an improvement in the way law 
enforcement agencies and the military conduct their business, 
but this will continue to be an area of focus for us.
    Senator Cardin. Laos is going to get a presidential visit. 
That is pretty special. And as you point out, it is historic. 
How--what recommendations would you make to the President to 
leverage his visit to Laos to advance the rights, human rights 
in that country?
    They have had a struggle over the years on human rights 
abusers. The government neither prosecutes nor punishes 
officials who commit human rights abuses. There is continued 
increased restrictions on civil and political rights, freedom 
of speech, association, and assembly.
    So if you are writing the paper to the administration as to 
how the President could help advance our respect for human 
rights in Laos, what would you suggest?
    Ms. Bitter. Thank you, Senator Cardin.
    It is true, the President's visit does provide an 
opportunity for high-level engagement, and it is a unique 
opportunity to advance our ties. In fact, Laos' chairmanship of 
ASEAN has provided many such opportunities, and throughout 
these engagements, our leaders have had the opportunity to talk 
to Laos' leaders about these issues--human rights, religious 
freedom--and to share with them not just our concerns, but also 
to explain and express that our concerns are not just our 
concerns, but they are, frankly, international norms.
    Right now, civil society in Laos is quite nascent, and our 
programming in Laos supports rule of law and supports media 
training and general education. And going forward, if 
confirmed, I would do my best to continue to make these points 
strongly and to encourage the Lao to see civil society and 
fundamental human rights as a very important part of a thriving 
and prosperous society.
    Senator Cardin. Thank you.
    Malaysia, I am not sure where to begin. I am going to have 
questions for the record for you to answer. And look, I very 
much admire your career. Malaysia, to me, is a country of major 
interest in this committee and the United States Senate. The 
administration has made overtures for a much closer 
relationship with Malaysia and are asking for congressional 
support to support that advancement of a relationship.
    And yet on so many issues, their activities are so much 
contrary to our priorities and our values. I could mention 
their support and trade with North Korea. I could mention 
corruption, including reports that it goes up to the highest 
levels of their government.
    But I am going to concentrate on one issue for my verbal 
questions--the rest I will do for the record--as to what you 
are going to do in regards to the trafficking issues. It is one 
of the highest priorities that we have in this country is to 
end modern-day slavery.
    Last year, in mass graves were discovered suspected 
trafficking victims. Very little--and I am being generous by 
saying ``very little''--I do not think any progress has been 
made in that country in prosecuting those who are responsible. 
And the indications are that there are ties to government 
officials in regards to the trafficking networks, which will 
require leadership at the governmental level to root out that 
corruption and hold those people accountable.
    Impunity is not an option. The U.S. relationship with 
Malaysia must be more effective in bringing about change. And 
quite frankly, as the head of our mission in Malaysia, we look 
to you to provide that independent information to the United 
States Congress so that we can take appropriate steps here to 
protect those who have been victimized.
    So would you just reassure me that, if confirmed, you will 
carry out that important responsibility?
    Ms. Lakhdhir. Senator Cardin, thank you for asking me that 
question so I have an opportunity to say this publicly.
    If I am confirmed, I am committed to ensuring that the 
embassy, the mission, and myself report fairly and fully, 
robustly, all the facts and all the information that we can 
develop about trafficking persons in Malaysia, about the 
migrant communities and the refugee communities, the things 
that the Malaysian government and civil society are doing and 
the things that they are not doing.
    So that is my commitment. We report to both the State 
Department. We will also engage with your committee and the 
committee staff and to convey information fairly and 
transparently.
    At the same time, I am also committed to being very direct 
and honest with Malaysian government about the concerns that 
the United States has about the legal requirements, about their 
living up to the commitments they have now made by changing 
their law and regulations to be a victim--a regime that puts 
the victims at the center of protection.
    I also appreciate that you are speaking out and other 
Senators so that we can use that in Malaysia and say that there 
is a broad concern across the U.S. Government, and that is also 
very useful in the way we do our diplomacy. So I appreciate 
that.
    Thank you.
    Senator Cardin. Thank you for your response. I appreciate 
it.
    Senator Gardner. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me thank all of our nominees for their service to our 
country already and your willingness to continue in that 
service. I appreciate it.
    And Ambassador Kim, I thought--I did not know you were 
still going in for another round. So I am pleased that you are 
willing to do so, and we are very proud of your work certainly 
in Korea and beyond.
    And I look forward--we have about 130,000 Filipino 
Americans, incredibly industrious, successful in New Jersey. So 
when you get situated, on one of your return visits to the 
United States, I would love to have you engage with them and 
get an insight as to what is happening in their original 
homeland. So I look forward to being supportive of you.
    I want to focus the bulk of my time with Ms. Lakhdhir only 
because of where you are being nominated to. I appreciate your 
previous service as well, and I want to go a little greater 
into depth what Senator Cardin mentioned.
    As you may know, this committee held a hearing yesterday on 
the Trafficking In Persons 2016 report, and other members of 
the committee and I have asked, given Malaysia's pervasive 
human trafficking problem and important business that is 
pending before the Congress related to Malaysia, that the State 
Department keep us regularly informed about the Malaysian 
government's ongoing efforts so we do not have to wait until 
the release of next year's TIP report to get a sense of what is 
happening.
    So I heard your response to Senator Cardin, and I assume 
that, if confirmed, you are committed to providing the 
committee with regular updates on the status of the Malaysian 
government's efforts to combat trafficking. Is that a correct 
statement?
    Ms. Lakhdhir. That is correct.
    Senator Menendez. And I hope that that is a sense of 
consultation because I know I would like to tell my friends at 
the State Department that, for me, speaking as one Senator 
sitting on this committee for better part of 10 years now, that 
there is a difference between notification and consultation.
    Notification is when you are just telling me what you are 
doing. Consultation is when you are engaging in a conversation 
as to some of these critical issue. So I hope that you will 
engage in--and I would say this to all of our nominees, you 
know, collectively. I hope that what we will engage in is 
consultation, not notification. There is a big, fundamental 
difference.
    And consultation, even when we disagree, leads to a better 
result than notification when we happen to have had no 
consultation along the way. So I like to say that to all of our 
nominees when they come before us so they understand at least 
openly and clearly where at least this Senator is coming from.
    In that regard, I would like to know whether or not in any 
of your previous tours with the State Department, have you been 
engaged in human trafficking or in the TIP report process?
    Ms. Lakhdhir. So I just would like to start that my first 
assignment--and this is about what I have seen and the impact 
that it is on human beings--I served in Saudi Arabia, and I was 
a consular officer. I mainly took care of American citizen 
services.
    But we were very small at that time, and so I also did non-
immigrant visa interviews. And there were many occasions where 
domestic workers came and were interviewed. And we often would 
have to very carefully have private interviews just with that 
individual, and we would ask sometimes very revealing and 
difficult questions about their situation, and in some cases, 
it was heartbreaking.
    I then went on to serve in Indonesia, which is, of course, 
a source country, and it is one of the source countries for 
Malaysia. And so when I--I served as a political officer, the 
trafficking, the TVPA had not yet been passed, but some of my 
work as a young political officer, and because I had come out 
of Saudi Arabia, involved trying to understand what was 
happening with recruitment agencies and what was happening in 
terms of many----
    Senator Menendez. I appreciate that, but what I was trying 
to get at, have you ever been part of the actual TIP process, 
where you were in country making recommendations or part of 
team as to what the regional bureau was going to take a view 
on, what the embassy was going to take a view on in relation to 
human trafficking in that country?
    Ms. Lakhdhir. I was not. I served in Beijing, but I was not 
working in this area. My colleagues were, and I was aware of 
their work.
    When I served in Belfast, this was not a concern.
    Senator Menendez. When you were working with the Under 
Secretary for Political Affairs, I assume that in some 
respects, you were part of the TIP process, or is that a wrong 
assumption?
    Ms. Lakhdhir. So the Under Secretary had what we call 
``Special Assistants'' for each of the regional bureaus, and 
they were deeply involved. And I had supervision over them, but 
I was less directly engaged in actually decision-making over 
the TIP process. So to be fair about, I am fully aware of the 
process. I am aware of how it works in Washington and I had a 
supervisory role, but I was not directly involved in any of the 
decision-making.
    Senator Menendez. Now there are serious concerns that 
Malaysia was upgraded to Tier 2 Watch List last year and 
retained this year based on political considerations and not an 
objective evaluation of Malaysia's actions. Do you believe that 
Malaysia earned its Tier 2 Watch List ranking this year, or do 
you agree with many of the members of this committee that they 
should have been ranked at Tier 3?
    Ms. Lakhdhir. Senator, I was not involved in this process 
in the last year. I was somebody waiting to be a nominee, and 
therefore, I am not allowed nor was it my role to work on 
Malaysia. So I was not involved in this process, and I am aware 
of what Secretary Kerry's final decision was because it was a 
public decision, and I have studied very carefully what our TIP 
colleagues put forward.
    I have met with Ambassador Coppedge and her staff and 
spoken to them of what their goals are for me when I go to 
Malaysia. But I cannot--I cannot speak to whether--what the 
decision-making was for this year.
    Senator Menendez. Mr. Chairman, may I have one more minute? 
Thank you.
    Let me ask you this then. Will you commit before the 
committee to pressing the Malaysian government to undertake a 
full investigation of the mass graves and holding the 
perpetrators, including any Malaysian government officials, 
accountable?
    Ms. Lakhdhir. Yes, I commit to directly saying that to the 
Malaysian government and pursuing it.
    Senator Menendez. Because there have been a few 
prosecutions, but interestingly, none from within the country 
itself.
    Let me ask you this. What progress would you reasonably 
expect to see over the next year in that investigation? How are 
we going to judge progress?
    Ms. Lakhdhir. So I would use the law's commitment on 
investigations, prosecutions, and convictions. And so I would 
use the law that has been provided in order for how I would 
present it to the Malaysians and ultimately what the State 
Department's judgment would be.
    Senator Menendez. Last question. You mentioned in your 
testimony that you are committed to pressing for effective 
implementation of legal amendments that Malaysia has added to 
its anti-trafficking law that were passed last year. What would 
you consider to be effective implementation of those 
amendments?
    I am trying to get a sense here. This is not a ``gotcha'' 
question. I am trying to get a sense of standards. You know, 
what is--we had a significant part of our session yesterday, 
Mr. Chairman, was the whole question about, well, what is 
significant versus not? What is meaningful?
    Because we can say that you can do anything. You can pass a 
law, but that does not mean very much, as we all know, unless 
it is actually implemented. Implementation could be just 
regulatory passage, but not enforcement. Enforcement depends 
upon degree.
    I am trying to, especially in a country in this sense, that 
has such a central focus of this committee as it relates to 
human trafficking, what would you say is that your 
recommendation to the State Department and to this committee 
Malaysians have effectively implemented to the amendments? How 
would you describe that?
    Ms. Lakhdhir. I think it would be putting the victims 
within the center of the activity that their protection and 
their identification and protection, they are allowing human 
trafficking victims to move and work in Malaysia, to providing 
translation services and preparing them for court cases. These 
are some of the things that are clearly mentioned in this 
year's TIP report.
    But I think, fundamentally, it is looking at individuals 
who have been trafficked as victims and as people who are due 
protection and then using their experiences to prevent future 
trafficking. So highlighting that these individuals need to be 
protected, and also their cases speak to how you can prevent in 
the future.
    Senator Menendez. Well, I thank you for the answer.
    I thank the chairman for the courtesy. Needless to say 
that, if confirmed, this is going to be a central part of what 
the committee's interest is going to be in Malaysia. Not 
exclusively, but a significant part. And so we look forward to 
your aggressive pursuit of these issues.
    Senator Gardner. Thank you, Senator.
    And Ms. Bitter, just to follow up a couple questions from 
our conversation that we had, the economic development 
obviously is critical in Laos and what it means to creating a 
more open political system. I think economic development, 
additional economic development would add to the openness of 
the political system there, as it has in other places around 
the globe.
    So what role can U.S. businesses and U.S. business 
interaction with Laos help build this economic development 
opportunity and thus a more open political environment?
    Ms. Bitter. Thank you for the question, Mr. Chairman.
    Yes, Laos is growing quite rapidly, and it has got a very 
young population. So economic development is very important.
    From my experience in Vietnam, I saw quite a bit that 
private companies and development of the private sector in 
Vietnam really did create opportunity for a discussion of 
introduction of U.S. values, U.S. work types, U.S.--just in 
general more familiarity and people-to-people ties.
    In Laos now, their economic development and their level of 
investment is quite a bit lower, but one thing that is amazing 
about American companies and one thing that we should all be 
very proud of is that when American companies come to a 
country, they invest not just in the country, but in the 
people. So seeking to create further economic development, 
further investment by U.S. companies in Laos will certainly 
increase its capacity and increase its level of development.
    And of course, when you increase development, increase 
investment, there is opportunity for U.S. exports. That is a 
little bit longer term. But certainly, Laos would benefit from 
more U.S. companies doing business there, and the United States 
would certainly benefit as well.
    Senator Gardner. And part of the investment that we can 
make through Laos through our efforts at the State Department 
should hopefully open up more opportunities and more space for 
civil society. Is that something that you see is happening as 
well?
    Ms. Bitter. Civil society is pretty nascent right now in 
Laos, and certainly, there would be opportunity for U.S. 
companies to support all kinds of development of civil society 
organizations. For example, there would be opportunity for 
companies through their CSR efforts to support women's economic 
empowerment, for example. That is something that seems very 
likely, and it certainly happened in Vietnam.
    So using that just as an example, I would say that is a way 
that American companies can certainly help Lao build its 
capacity and develop.
    Senator Gardner. Thank you.
    And Ms. Lakhdhir, we talked a little bit in the office 
about radicalization concerns in Malaysia, and how do you 
assess sort of the quality of the U.S. relationship with 
Malaysia when it comes to anti-terrorism efforts?
    Ms. Lakhdhir. Thank you, Senator.
    And since we met, there have been several additional 
incidents that are deeply concerning. My understanding from 
Embassy KL, from the current Ambassador, is that our 
cooperation with the Malaysians has very much advanced, that 
Malaysia has become very concerned about the threats, also 
concerned about the Abu Sayyaf group and the Sulu Sea. And the 
three countries is Philippines, Indonesia, and Malaysia just 
announced their commitment to cooperate more robustly together 
to try to secure that maritime area.
    The Malaysians also are this month opening public diplomacy 
outreach program with our support to try to change the 
narratives and support for extremism. So I think they are 
working very closely with us, and I think we are sharing a lot 
more information. And Malaysia has also taken action against 
those who wish to go fight in Syria as foreign fighters. So----
    Senator Gardner. That is one thing that we have to continue 
to work with Malaysia is to make sure that they are doing 
everything they can to counter the threat of terrorism within 
and, of course, their terror financing actions. Are you going 
to be making that one of your top priorities, if confirmed, to 
work with Malaysia in terms of terror financing?
    Ms. Lakhdhir. Yes, I would. And we have a number of 
agencies within the embassy community that has that experience 
and would work with the Malaysian law enforcement on that.
    Senator Gardner. Well, thank you.
    And I know that I have some questions that we will submit 
for the record as well, in addition to you, Ambassador Kim, 
some questions as well regarding South China Sea. And I do not 
know if I can throw one in there on North Korea or not, but 
maybe I will just for old time's sake. [Laughter.]
    Senator Gardner. But I want to thank all three of you for 
being here today. Thank you for your family and your commitment 
to this.
    The record will be kept open until the close of business on 
Friday. We hope that you will respond to those questions 
promptly, and your comments will be made available in the 
record.
    Senator Gardner. Anything else I need to address?
    With that, the thanks of the committee, thank you for your 
time today.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]
                              
                              
                              ----------                              


              Additional Material Submitted for the Record


Reponses of Sung Kim, nominated to be Ambassador to the Republic of the 
        Philippines, to Questions from Members of the Committee

                 ambassador-designate kim's responses 
                    to questions from senator corker

    Question. The Philippines, which has made significant efforts, was 
upgraded to Tier 1 in this year's report despite the report stating 
that sex trafficking was still a ``significant problem.'' How is this 
upgrade warranted? Do you have any sense of where the new Philippine 
administration will be on Trafficking in persons?

    Answer. The rankings in the 2016 Trafficking in Persons (TIP) 
report are an assessment of a government's efforts to combat 
trafficking, not a measure of the problem in each country. The 
Philippine government has increased its efforts over several years to 
improve investigation and prosecution of trafficking crimes. During the 
reporting period, the government convicted 42 traffickers, including 
five for online child sex trafficking and two for forced labor. 
Although pervasive corruption undermined efforts, the government 
convicted two immigration officers and charged five officials allegedly 
complicit in trafficking.
    With an estimated 10 million Filipinos working abroad, and a 
significant number of these migrant workers subject to sex trafficking 
and forced labor, the Philippine government has also steadily increased 
prevention efforts and the provision of services to victims. In an 
effort to prevent trafficking of migrant workers, the government 
increased its funding for the Commission on Filipinos Overseas (CFO) to 
facilitate anti-trafficking prevention campaigns. The government also 
increased the number of shelters and residential care facilities to 
address the needs of victims.While these efforts have resulted in a 
greater number of prosecutions, stronger prevention measures, and 
increased services for victims, the TIP report also provides 
recommendations for continued improvement. During the course of 
diplomatic engagements, the Mission will encourage the government of 
the Philippines officials to implement these recommendations.
    Taken in sum, the government of the Philippines' has achieved major 
successes in combatting TIP and we have no indication that the new 
administration will not continue this effort moving forward. Finally, 
the TIP Report is updated on an annual basis and the Mission will 
continue to diligently document progress, or backsliding, for the 
preparation of future reports.

                               __________
                               
                 ambassador-designate kim's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been an 
important part of my work at the State Department. As Special 
Representative for North Korea Policy, I coordinate closely with the 
Special Envoy on North Korean Human Rights Issues on all aspects of our 
efforts to bring attention to the DPRK's deplorable human rights 
practices.
    This includes highlighting these conditions through our annual 
reports, working with like-minded governments that share our concern at 
the U.N. and other international organizations to shed light on these 
issues, and raising awareness through public events and in private 
meetings. We are also leveraging different U.N. tools to highlight the 
issue, including by cosponsoring and lobbying for the adoption of 
strong annual DPRK human rights resolutions at the U.N. General 
Assembly and Human Rights Council and by successfully adding the North 
Korean human rights issue as a standing agenda item for the U.N. 
Security Council.
    Since the release of the United Nations Commission of Inquiry's 
report on human rights in North Korea in February 2014, we have made 
progress in our efforts to focus international attention and pressure 
on North Korea. Our 2016 report earlier this month identifying North 
Korean officials and entities responsible for or associated with 
serious human rights abuses or censorship led to the sanctioning of Kim 
Jong Un and other DPRK officials and entities.
    Even before my work on human rights issues in North Korea, the 
promotion of human rights has been a consistent element of my work with 
the State Department. In the mid-1990s, I covered human rights as a 
Political Officer assigned to our Embassy in Kuala Lumpur. I also 
supported efforts to promote human rights and democracy during 
assignments with the State Department's Office of Chinese Affairs and 
in our Embassy in Tokyo. If confirmed, I look forward to continuing to 
work to defend and protect the universal values of human rights that 
remain so important for the United States.

    Question. What are the most pressing human rights issues in the 
Philippines? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the Philippines? 
What do you hope to accomplish through these actions?

    Answer. The Philippines faces a number of pressing human rights 
issues, including the prevalence of reported extrajudicial killings, 
violence against human rights activists, killings and harassment of 
journalists, and the lack of healthcare, education, and other basic 
services for the country's indigenous peoples.
    To address these issues, if confirmed, I will ensure that the U.S. 
government continues to work on improving the administration of justice 
in the Philippines through programs administered by USAID, the 
Department of Justice, and the Department of State's Bureau of 
International Narcotics and Law Enforcement Affairs. Through our close 
cooperation with the Philippine government, if confirmed, I will 
continue our efforts to support increased transparency and 
accountability that address human rights violations. I will meet with 
human rights NGOs, including those from indigenous groups and other 
minorities, and make sure that the Embassy understands and works to 
help address their concerns. I will also raise the importance of human 
rights, particularly due process and the rule of law, in my meetings 
with Philippine government interlocutors.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Philippines in 
advancing human rights, civil society and democracy in general?

    Answer. A major obstacle to addressing human rights issues in the 
Philippines is the prevalence of corruption and the failure of the 
Philippine government to implement anti-corruption laws effectively. 
The criminal justice system in the Philippines plays a critical role in 
the protection of human rights; however, it is extremely difficult to 
hold human rights abusers criminally accountable when the courts are 
overburdened and weak. Advancing human rights, civil society, and 
democracy in the Philippines will also be challenging because the 
Philippine government currently lacks sufficient means to investigate 
and penalize those who succumb to abuse and corruption. However, if 
confirmed, you have my commitment that I will to work together with the 
Philippine government to strengthen the rule of law and due process 
while at the same time promoting respect for human rights.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Philippines? If confirmed, what steps 
will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights, civil society, 
and other NGOs both in the United States and in the Philippines. The 
Philippines has a vibrant civil society and our Embassy in Manila 
regularly meets with civil society groups of all types. If confirmed, I 
will ensure that engagement continues.
    As for the Leahy Law, Embassy Manila has one of the most 
professional in-country Leahy vetting units in the world. The Embassy 
has an excellent record of rigorously applying the Leahy Law while 
providing training to the security forces of the Philippines. If 
confirmed, I will continue to ensure that the Leahy Law is rigorously 
applied and that U.S. security assistance and security cooperation 
activities reinforce human rights.

    Question. Will you and your embassy team actively engage with the 
Philippines to address cases of key political prisoners or persons 
otherwise unjustly targeted by the Philippines?

    Answer.Yes, if confirmed, Embassy team and I will continue to 
engage with the Government of the Philippines on cases of prisoners or 
persons claiming to be otherwise unjustly targeted because of their 
political affiliation. It is worth noting, however, that the Philippine 
government classifies political prisoners as individuals accused of any 
crime against national security. Many individuals considered by the 
government and international NGOs to be ``political prisoners'' in the 
Philippines are affiliated with armed insurgent and U.S.-designated 
terrorist groups such as the Abu Sayyaf Group, Jemaah Islamiyah, and 
the Communist Party of the Philippines/New People's Army.
    At the same time, I acknowledge the distinction between persons who 
are wrongfully imprisoned and those who have committed a legitimate 
crime. If confirmed, I will support the efforts of the Philippine 
government to uphold this distinction. I also understand that the weak 
and overburdened justice sector can lead to lengthy pretrial 
detentions. As Ambassador, I will ensure that the Embassy will continue 
efforts to assist the Philippine justice sector become more efficient 
and reduce trial waiting periods.

    Question. Will you engage with the Philippines on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with the Philippines on 
matters of human rights, civil rights, and governance. Further, I will 
ensure that the team at our Embassy continues to engage and diligently 
monitor the human rights situation, including any deterioration in the 
human rights conditions in the Philippines; the civil rights 
environment; and governance situation. When appropriate, in meetings 
with our Philippine counterparts, we will emphasize the importance of 
human rights, particularly due process and the rule of law.

                               __________
                               
                 ambassador-designate kim's responses 
                    to questions from senator rubio

    Question. North Korea's nuclear and missile programs continue 
without visible restrictions. Is it time to declare the Obama 
administration's ``strategic patience'' non-policy a failure?

    Answer. In the face of recent DPRK nuclear and missile tests, we 
have pursued an aggressive sanctions regime and an international 
campaign to pressure the DPRK government to return to credible 
negotiations. North Korea has never before been subject to the kind of 
pressure levied upon it by the recent UNSCR, the recently enacted North 
Korea Sanctions and Policy Enhancement Act, and by the recent Executive 
Order. These actions are not ``more of the same''--they represent a 
major increase in pressure by the international community. This 
pressure is part of our comprehensive policy toward North Korea--along 
with a strong defensive military posture, including the recently 
announced decision to deploy the Terminal High-Altitude Area Defense 
(THAAD) system in the ROK, rooted in our ironclad alliances with the 
ROK and Japan to provide deterrence, and principled diplomatic 
engagement to explore North Korea's readiness for credible negotiations 
that would lead to the denuclearization of the DPRK. Our priority 
remains denuclearization, but at the same time, we have worked closely 
with our allies in the ROK and Japan to enhance our ability to protect 
against and respond to North Korean actions and provocations, including 
through the recently announced deployment of a Terminal High Altitude 
Area Defense missile defense system.

    Question. Given yesterday's ruling of the Tribunal in The Hague, 
how will the administration reinforce the need for China to drop its 
outlandish claims in the South China Sea?

    Answer. The ruling of the Arbitral Tribunal concerns maritime 
entitlements and does not speak to maritime boundaries or competing 
sovereignty claims over land features. We are encouraging all claimants 
to take advantage of the Arbitral Tribunal's ruling to clarify their 
maritime claims in accordance with international law, as reflected in 
the Law of the Sea Convention, and to work together to creatively 
manage and resolve their disputes. Such steps could provide the basis 
for further discussions aimed at narrowing the geographic scope of the 
disputes, setting standards for behavior in disputed areas, and 
ultimately resolving their underlying disagreements free from coercion 
or the use or threat of force.

    Question. What expectations do we have about how the new Philippine 
Government will respond to the Tribunal's ruling? Do we anticipate they 
might accept some sort of deal with Beijing to not pursue 
implementation of the ruling?

    Answer. Shortly after the ruling was announced on July 12, the 
Philippine government welcomed the Arbitral Tribunal's ruling, affirmed 
its respect for this decision to solve the disputes in the South China 
Sea, and called on those concerned to exercise restraint and sobriety. 
The Philippine government's statement also reiterated the Philippines' 
commitment to the peaceful resolution and management of disputes.It is 
our expectation that the Philippine government will live up to its 
commitment to restraint and sobriety. As we have said, the United 
States urges all parties to exercise restraint and use the Arbitral 
Tribunal's ruling as a new opportunity to renew efforts to address 
maritime disputes peacefully.

    Question. Will the administration examine the use of appropriate 
authorities to sanctionChinese companies working on disputed islands?

    Answer. We will consider the potential use of all available 
authorities, as appropriate, to respond to Chinese actions in the South 
China Sea that threaten U.S. interests. The President has authority 
under the International Emergency Economic Powers Act (IEEPA) to impose 
sanctions to deal with any unusual and extraordinary threat, which has 
its source in whole or substantial part outside the United States, to 
the national security, foreign policy, or economy of the United States, 
if the President declares a national emergency with respect to such a 
threat. Although there are no current sanctions programs specifically 
targeting China over the South China Sea, the President has the 
authority to implement a sanctions response if the President determines 
it is necessary and appropriate under IEEPA.

                               __________

Reponses of Rena Bitter, nominated to be Ambassador to the Lao People's 
    Democratic Republic, to Questions from Members of the Committee

                ambassador-designate bitter's responses 
                    to questions from senator corker

    Question. What has the Laotian government committed to in its 2016-
2020 plan to combat trafficking in persons? Of these elements, what 
will your priorities be?

    Answer. Lao government officials have acknowledged on multiple 
occasions that human trafficking remains a problem in Laos. They have 
also publicly committed to work with civil society, law enforcement, 
and foreign governments to prevent, protect, assist and properly 
identify victims.
    Laos has taken steps to combat human trafficking. The Lao 
government passed a new anti-trafficking in persons law, drafted 
national victim identification guidelines, and completed the 2016-2020 
national action plan. Among other items, the plan directs the 
government to enhance bilateral and multilateral coordination on 
trafficking issues, as well as cooperation with international 
organizations and NGOs. It calls for the government to conduct 
campaigns to raise awareness and establish a trafficking hotline. In 
addition, it directs the government to strengthen capacity for law 
enforcement officials to identify victims and prosecute traffickers, 
including by enhancing coordination among law enforcement agencies and 
victim service providers. To protect victims, the plan instructs the 
government to provide shelters and comprehensive services.
    If confirmed, I will engage the Lao government and civil society to 
urge the full implementation of the government's action plan, and I 
will encourage and assist efforts to address the recommendations set 
forth in the 2016 Trafficking in Persons Report.

                               __________
                               
                ambassador-designate bitter's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have prioritized the promotion of human rights issues 
throughout my career. As Consular Section Chief in Jordan, my section 
backed up Embassy Baghdad's at a time when its Iraqi staff was being 
targeted for their crucial work with American diplomatic and military 
servicemembers. I worked closely with the Jordanian government to 
provide routes of escape for many Iraqi locally engaged staff and their 
families, before the United States had a refugee program to assist 
them. During this time period, I also own the Thomas Jefferson Award 
for my service to American citizens. Additionally, as Director of the 
State Department's Operations Center, I led the Department's response 
to multiple humanitarian crises, including those related to the Arab 
Spring and the triple disaster in Japan.
    Most recently as Consul General in Ho Chi Minh City, I worked 
closely both with civil society groups and individuals to facilitate 
and highlight U.S. support for fundamental rights with the government 
of Vietnam. A key component of this support was introducing training 
programs focusing on rule of law, free expression, labor and media. Our 
public diplomacy activities consistently spotlighted LGBT rights, 
women's empowerment, environmental and disability activism.
    I met publicly and privately with religious leaders and activists 
as a way to concretely demonstrate U.S. government support for their 
rights and raised individual cases and broad principles consistently 
and directly in my interactions with Vietnamese government officials.

    Question. What are the most pressing human rights issues in Laos? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Laos? What do you hope to 
accomplish through these actions?

    Answer. We continue to have concerns about Laos' human rights 
record, particularly restrictions on civil society, freedom of 
religion, freedom of expression, and freedom of assembly. If confirmed, 
I will continue to raise these issues with the Lao government. Senior 
U.S. government representatives, including the Secretary of State, have 
engaged Lao leaders at the highest levels, ensuring that Laos 
understands our priorities and our values on human rights are those 
shared by the majority of people worldwide.
    In addition, our development assistance always supports our end 
goal to encourage and facilitate Laos' respect universal human rights. 
We support programs that strengthen rule of law, access to health and 
education for Lao women and children, labor rights, media training and 
environmental protection. I will expand and continue these programs, if 
confirmed.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Laos in advancing 
human rights, civil society and democracy in general?

    Answer. Laos is a one-party state, and its civil society is nascent 
and fragile. Due to these limitations, the State Department supports 
programs that support civil society capacity development, and USAID 
programs assist persons with disabilities and support improvements in 
nutrition and health programs, to name just a few examples, to help 
make civil society stronger. If confirmed, I will be diligent in 
working to strengthen civil society organizations and furthering 
efforts to preserve human rights.Question:

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Laos? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. Yes, I am fully committed to meeting with human rights, 
civil society, and other NGOs in the U.S. as well as human rights NGOs 
in Laos. Additionally, I will continue to support the growth of civil 
society in Laos. Support from U.S.-based human rights and other non-
governmental organizations is critical to helping Laos make 
improvements on these issues. If confirmed, I will work to ensure all 
U.S. assistance to Laos is in accordance of the Leahy Law. U.S. 
security assistance to Laos is currently limited; expanding cooperation 
in this area depends on further commitments from the Government of Laos 
to improve its human rights record.

    Question. Will you and your embassy team actively engage with Laos 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Laos?

    Answer. I am deeply concerned by cases such as Sombath Somphone and 
Kha Yang, as well as the chilling effect these disappearances have 
throughout Laos. If confirmed, I will press the Lao government to 
conduct full, thorough, and transparent investigations. This engagement 
will be through private meetings with key officials in the Lao 
government as well as through public statements that signals to the 
citizen of Laos that we have not forgotten about these cases. Those 
responsible must be held accountable. I will also encourage the Lao to 
view the justice progress as a part of their wider reputation regarding 
the rule of law. While these cases are about political activists, the 
lack of a full investigation casts doubt on the strength and 
independence on the judiciary which could have follow on effects for 
western investors.

    Question. Will you engage with Laos on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Engaging Laos on human rights issues is among the mission's 
top priorities. Issues that receive particular attention are 
restrictions on civil society, freedom of religion, freedom of 
expression and freedom of assembly. If confirmed, I will continue to 
raise our concerns with Laos' record at the highest levels.

                               __________
                               
                ambassador-designate bitter's responses 
                    to questions from senator rubio

    Question. Russia is increasing its outreach to Southeast Asia 
particularly focused on exports of hydrocarbons, energy technology, and 
weapons. Putin hosted in May the first summit of Southeast Asian 
nations in Russia. In particular, Russian arms sales to Southeast Asia 
more than doubled to nearly $5 billion in the five year period through 
2015. What are we doing enough to blunt Russia's attempt to buy 
influence in the region?

    Answer. Although Russia's interest in Southeast Asia has increased, 
Cold War ties between Russia and Laos continue to fade, and there is 
little indication Russia will be able to buy influence there. Moreover, 
Laos has experience balancing and managing influence and investment 
from larger and more powerful countries, and is focused on deepening 
new relationships with allies such as Japan and Korea, and, 
increasingly, with the United States and the European Union.
    Our efforts to expand our relationship with Laos are based on 
partnering to build trust, engaging with new generations, and exploring 
areas of mutual cooperation. Laos understands that it needs a diverse 
portfolio of friends in order to preserve its independence and move 
beyond the ranks of the world's least developed countries. We are 
working to establish the United States as a reliable partner by 
addressing legacy issues like unexploded ordnance (UXO) and engaging 
with Laos on health, education, nutrition, and rule of law. We are 
solidifying our expanding relationship through people-to-people 
exchanges and visits by senior officials.

                               __________

 Reponses of Kamala Shirin Lakdhir, nominated to be U.S. Ambassador to 
          Malaysia, to Questions from Members of the Committee

               ambassador-designate lakdhir's responses 
                    to questions from senator corker

    Question. What are your priorities for addressing trafficking in 
persons and addressing concerns raised by the SFRC?

    Answer. The recommendations in the 2016 Trafficking in Persons 
Report will guide my priorities, if confirmed. The TIP Report narrative 
for Malaysia and its recommendations represent the best analysis of our 
TIP experts in Washington and on the ground at our Embassy, and take 
into account input from a variety of non-governmental groups and 
individuals who share our serious concerns about trafficking in persons 
in Malaysia.
    Among the current Report's recommendations, I would especially urge 
Malaysia to fully and effectively implement the 2015 amendments to its 
anti-trafficking law giving victims greater freedom to live and work 
outside of shelters. If confirmed, I will stress to Malaysian officials 
at every level the need to increase the effectiveness of prosecutions, 
including any complicit government officials. This includes any 
officials or others involved in the deaths of migrants discovered in 
horrendous mass graves on the Malaysia-Thai border.
    To be successful, Malaysia will need to take a whole-of-government 
approach to reform. Increasing prosecutions will require improved 
collaboration by law enforcement, stronger cooperation between law 
enforcement and prosecutors, timely court procedures, and increased 
familiarity by judges with the full range of trafficking crimes. At the 
same time, improved case management and communication with trafficking 
victims about the status of their cases will be needed to help victims 
feel safe, understood, and empowered to work with investigators and 
prosecutors. This includes building prosecutor-victim relationships at 
least two weeks prior to trial, supporting shelters where victims are 
counseled, and providing counseling in native languages.
    If confirmed, the Embassy team and I will work closely with both 
government and civil society to identify ways to achieve concrete 
results. I also look forward to working with this committee as we press 
Malaysia for progress in these areas.

                               __________
                               
               ambassador-designate lakdhir's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In nearly 25 years working as a diplomat overseas and in 
Washington, I have worked on a wide range of efforts to support human 
rights and democracy, a critical component of U.S. diplomacy. My most 
visible work to support human rights and democracy was as Consul 
General in Northern Ireland. As the U.S. representative, I promoted 
implementation of the political settlement enshrined in the 1998 Good 
Friday Agreement. During my time in Belfast, the final step of that 
Agreement--devolution of policing and justice to the North Ireland 
authorities--was achieved, but only after protracted and difficult 
negotiations and U.S. pressure. This was a critical step that, if it 
had not been achieved, likely would have resulted in the collapse of 
the Northern Ireland power sharing government.
    As Consul General, I also persistently promoted interaction between 
all communities in Northern Ireland, including immigrant communities. 
In outreach for Martin Luther King Day, on International Women's Day, 
in support of LGBTI people, and on numerous other occasions, I strongly 
emphasized respect for human rights for all citizens.
    As the office director for Maritime Southeast Asia in the 
Department's Bureau for East Asian and Pacific Affairs from 2007-2009, 
I oversaw U.S. engagement with the Philippines, Indonesia, Malaysia, 
Timor Leste, Singapore, and Brunei. In each of these countries, U.S. 
diplomacy focused on strengthening democracy, rule of law, and respect 
for human rights. In the Philippines, we closely monitored 
extrajudicial killings, pressing the Philippine government to 
investigate and halt these killings as well as to implement protections 
of human rights as a critical component of U.S.-funded law enforcement 
and military trainings. In Timor-Leste, we focused on building 
government institutions and civil society in a fragile new nation 
during a time that included attempted assassinations of the President 
and Prime Minister in 2008 and the aftermath of widespread sectarian 
violence in 2006. In Malaysia, lively national elections resulted in 
the strongest showing by the opposition since the country's 
independence, and U.S. policy supported the expansion of civil society 
and public debate. In Indonesia, our diplomatic efforts aimed to build 
democratic and transparent government institutions, as well as respect 
for rule of law and human rights after the then-recent transition from 
the Suharto era.

    Question. What are the most pressing human rights issues in 
Malaysia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Malaysia? What do 
you hope to accomplish through these actions?

    Answer. The United States is concerned about a number of human 
rights issues in Malaysia. In particular, there is a need for increased 
efforts to protect the life and liberty of people crossing the 
country's borders. The discovery in 2015 of mass graves at camps on the 
Malaysia-Thailand border illustrates the urgent need for the government 
to take action. Malaysia has launched investigations, but should act 
quickly to identify those responsible and bring them to justice, to 
include any complicit government officials. Working with Malaysia to 
protect migrants, trafficking victims, and other vulnerable populations 
will be among my top priorities, if confirmed.
    I also plan to underscore in my engagements with Malaysian 
officials that fairness, transparency, and rule of law are essential to 
promote confidence in Malaysia's judicial system and democracy. The 
free exchange of ideas, including in the press and online, is 
particularly crucial to innovation and success in the global economy, 
so I would also work with the private sector and other governments to 
urge Malaysia to ensure its laws, existing and future, fully respect 
freedom of expression. Finally, I would also continue to raise U.S. 
concerns about the selective use of the Sedition Act and other laws to 
stifle dissent.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Malaysia in 
advancing human rights, civil society and democracy in general?

    Answer. It is always challenging to respect the political process 
and cultural and historical circumstances of any country, while at the 
same time pressing for governments to abide by international human 
rights obligations and commitments. I recognize this challenge and, if 
confirmed, will urge the Malaysian government to fulfill its 
commitments to protect the human rights of Malaysian citizens, 
migrants, and all others within its borders. Continued active 
engagement and partnership with Malaysia across a broad array of mutual 
interests will provide greater opportunities to address human rights 
concerns.
    Malaysia's Sedition Act is one particular concern. Prime Minister 
Najib backed away from an earlier promise to repeal the law, and his 
government instead expanded its scope in late 2014. The United States 
has repeatedly expressed our concerns about the Sedition Act and other 
limits on freedom of expression in Malaysia. The U.S. government also 
proactively sought details of proposed changes to the country's laws 
regulating the internet, and expressed concerns about their potential 
restrictions on freedom of expression. We have also emphasized to 
Malaysians that restrictions on speech and assembly, and a lack of 
confidence in rule of law and judicial independence could have a 
negative impact on Malaysia's image as a business-friendly economy. If 
confirmed, I would continue to press the Malaysian Government on these 
issues.
    Advocating for the rights of LGBTI people is another challenge. 
Some officials have stated LGBTI rights are incompatible with Malaysian 
values, but the Embassy continues to impress upon Malaysians that a 
vibrant, multiethnic democracy depends on protecting the rights of all 
people and that a society should protect the beliefs of the faithful as 
well as the rights of LGBTI people. In March, Secretary Kerry 
celebrated Malaysian transgender activist Nisha Ayub as one of the 2016 
International Woman of Courage awardees. If confirmed, I will continue 
to support capacity-building grants and activities for LGBTI civil 
society and urge progress in this area.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Malaysia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will continue the long-standing practice of 
meeting with human rights, civil society, and other non-governmental 
organizations in the United States and in Malaysia. In particular, such 
meetings are an opportunity to exchange views on how to cooperate on 
the protection of human rights and dignity of people, as well as to 
symbolize the U.S. commitment to democratic principles and the 
protection of human rights.The Leahy Act has been an important tool in 
protecting human rights for nearly 20 years, and I am fully committed 
to its implementation, including strict adherence to the Department's 
Leahy vetting procedures.

    Question. Will you and your embassy team actively engage with 
Malaysia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Malaysia?

    Answer. Yes. The United States government regularly raises its 
concerns about selective use of the Sedition Act, national security 
legislation, and other laws to harass, detain, and imprison government 
critics, including opposition leader Anwar Ibrahim. We do so at the 
highest levels of government, and if confirmed, I will continue that 
practice.

    Question. Will you engage with Malaysia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I am committed to raising U.S. concerns 
regarding human rights, civil rights, and good governance with 
Malaysian counterparts. In particular, discussing strong bilateral 
trade and investment between the United States and Malaysia provides an 
opportunity to underscore our firm belief that good governance and 
freedom of expression are essential to Malaysia's continued prosperity 
and ability to innovate. I will also seek to increase opportunities for 
exchanges between U.S. and Malaysian civil society in order to 
strengthen the capacity of non-governmental organizations in 
Malaysia.Human Trafficking

    Question. As you know, last year Malaysia was promoted from Tier 3 
to Tier 2 Watch List in the State Department's Trafficking in Persons 
Report. Yet, Malaysia has taken few significant steps to address its 
overall trafficking and forced labor problem--the steps that they have 
taken have been small in comparison with the scope of the problem. The 
Malaysia 2016 TIP report reads, ``[t]he Government of Malaysia does not 
fully meet the minimum standards for the elimination of trafficking; 
however, it is making significant efforts to do so. Despite these 
measures, the government did not demonstrate overall increasing anti-
trafficking efforts compared to the previous reporting period.'' 
Despite a reformed victim protection system, migrant workers continue 
to suffer on palm oil plantations and in electronics factories. Though 
trafficking convictions increased last year, investigations and 
prosecutions decreased. And no one has been held accountable for the 
mass graves found last year on the Thai border.
    What, in your view, is the rationale for keeping Malaysia on the 
Tier 2 Watch List?

    Answer. Secretary Kerry made the 2016 tier placement decisions 
based on an assessment of government efforts to meet the minimum 
standards established under the TVPA. These efforts are outlined in the 
2016 report, along with specific recommendations for Malaysia. One key 
effort was Malaysia's continued work to reform its victim protection 
system with the goal of giving victims the ability to move freely in 
and out of shelters and to seek employment, the top TIP report 
recommendation for several years. Malaysia welcomed international 
expert opinion and convened a series of consultation sessions with NGOs 
during which civil society was given the opportunity to provide 
specific edits and recommendations on the draft regulations, which have 
since become law.
    Malaysia has much work to do to improve the situation of 
trafficking victims and to hold traffickers accountable, including 
increasing investigations, prosecutions and convictions. If confirmed, 
I will remain committed to urging Malaysia to make progress based on 
those recommendations.

    Question. Can you pledge that, if confirmed as Ambassador, you will 
do all that is within your power to ensure that political 
considerations will not influence Malaysia's ranking in the State 
Department Trafficking in Persons Report?

    Answer. Yes. If confirmed, I will continue to lead the Embassy in 
reporting the facts accurately and completely, and to provide the TIP 
office and the Secretary of State our best and honest assessment of 
Malaysia's efforts to address this serious problem. My team and I will 
objectively assess the government's efforts each year against the 
TVPA's minimum standards in any recommendations to the Department 
regarding the annual Trafficking in Persons Report.

    Question. What is your strategy to incentivize Malaysia to take 
more significant steps to prosecute traffickers involved in 
trafficking--not just a few cases, but a greater effort to tackle human 
trafficking as a product of organized criminal syndicates?

    Answer. I believe the Trafficking in Persons Report is an important 
tool to incentivize countries to take significant steps in each of the 
TIP focus areas: protection, prosecution, and prevention. The Report 
and its recommendations make very clear to Malaysia the urgent need to 
make progress on prosecutions and convictions of traffickers. I 
understand the Government of Malaysia has welcomed U.S. and 
international experts to help build the capacity of its investigators, 
prosecutors, and judges to bring successful TIP cases. If confirmed, I 
will work with the Government of Malaysia to support that 
collaboration.
    If confirmed, I will press for greater accountability for 
traffickers, especially increased prosecutions and convictions. I 
believe the U.S.-Malaysia Labor Consistency Plan side agreement to the 
Trans-Pacific Partnership (TPP) promotes these same priorities and 
incentivizes the Government of Malaysia to cooperate on these issues.
Human Rights
    Question. Earlier this year Senator McCain and I sent a letter to 
President Obama expressing our concerns with regards to Prime Minister 
Najib's efforts to undermine the rule of law and basic human rights. 
The State Department's Country Report on Human Rights for 2015 
describes Malaysia's restrictions on freedom of speech and expression, 
on the press, and on assembly, as well as sedition charges against 
dozens of activists, lawyers and opposition politicians.
    As Ambassador, how will you prioritize human rights in Malaysia 
with other U.S. strategic and economic interests?

    Answer. Protecting human rights has been and will continue to be a 
priority of the United States in its diplomatic engagement. Advancing 
respect for human rights, freedom of expression, transparency, and rule 
of law are critical to achieving many goals of the Mission--from 
countering violent extremism to increased trade and investment--in 
Malaysia. It will be my priority, if confirmed, to underscore to the 
government of Malaysia the importance of good governance, rule of law, 
and freedom of expression to the country's continued prosperity and 
ability to innovate. In the context of our strong bilateral trade and 
investment, I will also work to ensure that goods and services from 
Malaysia meet the highest labor standards.

    Question. What specific areas--good governance, anti-corruption, 
labor rights, freedom of information--is Malaysia making progress and 
where do the most significant challenges remain?

    Answer. While high-level political corruption remains a major 
challenge in Malaysia, regulators and law enforcement officials have 
taken steps to combat money-laundering and terrorism finance. In 
February 2016, Malaysia gained full membership to the Financial Action 
Task Force (FATF) after undergoing an intensive mutual evaluation.
    The United States champions good governance and transparency. In 
Malaysia, most government documents, including draft legislation, are 
not generally available to the public. If confirmed, I will support 
longstanding U.S. government efforts to urge the Malaysian Government 
to share draft legislation with stakeholders from industry and civil 
society, and in particular proposed legislation that would restrict the 
free flow of information online.
    Finally, the U.S.-Malaysia Labor Consistency Plan requires Malaysia 
to make significant progress on labor rights before the Trans-Pacific 
Partnership (TPP) can enter into force between the United States and 
Malaysia. These improvements include enforcing the core labor rights as 
outlined by the International Labor Organization (ILO)--freedom of 
association and collective bargaining, and the eradication of 
discrimination and forced and child labor. Malaysia has begun to amend 
its laws to bring it into compliance with these international 
standards. Malaysia has already made modest progress by amending and 
issuing regulations to its anti-trafficking law that are intended to 
enhance the ability of victims to move freely and to work. The 
government has begun collaborating with civil society on trafficking 
victim protection, including by funding NGO victim support activities 
for the first time. While much work remains, these are important steps 
in reforming Malaysia's victim protection regime and improving the 
government's efficacy in the fight against trafficking. As the recent 
TIP report emphasized, Malaysia needs to increase trafficking 
investigations, prosecutions, and convictions. I will work steadfastly 
to ensure Malaysia lives up to these commitments, if confirmed.

    Question. How will you promote human rights with Malaysia's youth, 
including in counter-terrorism and CVE work in Malaysia?

    Answer. If confirmed, I will support greater opportunities for the 
peoples of Malaysia and the United States to meet and deepen their 
understanding of each other's cultures and values, including through 
tourism, education, and other people-to-people exchanges. Outreach to 
Malaysia's youth and communities outside the capital will be a 
particular area of focus for me, if confirmed.
    Working with the Malaysian government, the U.S. government's CVE 
efforts are focused on strategic communications projects to analyze 
target audiences, and to create and disseminate information. If 
confirmed, I hope to leverage government-civil society partnerships to 
ensure a wide range of stakeholders participate in CT and CVE efforts.
Corruption
    Question. With multiple media outlets reporting that money from the 
1MDB fund was diverted to Prime Minister Najib's bank account, some 
analysts argue that U.S. support for Najib risks giving the impression 
that the United States is not concerned about these corruption 
allegations, or that the United States can tolerate some amount of 
corruption for the sake of maintaining U.S.-Malaysia cooperation. As 
you may know, I view anti-corruption efforts as absolutely central to 
our foreign policy.
    How should the United States factor the 1MDB corruption allegations 
into its bilateral relationship with Malaysia?

    Answer. The peoples of the United States and Malaysia have a strong 
relationship built on common economic and security interests and mutual 
trust. Investing in the long-term relationship between the United 
States and Malaysia provides a strong foundation for the United States 
to address issues of concern, including corruption. The United States 
will continue to urge the government of Malaysia to apply the rule of 
law consistently, fairly, and transparently, and with respect for 
universal human rights--as we have routinely done at the highest 
levels. Additionally, our agencies have expanded cooperation on this 
important issue with Malaysian institutions like the Malaysian Anti-
Corruption Commission (MACC). If confirmed, I would work with all 
agencies and departments of the U.S. government to support the U.S. 
government's commitment to preventing and combatting corruption, 
including training and capacity building programs for Malaysian 
regulators and law enforcement officials to combat corruption and other 
financial crimes.

    Question. To what extent are anti-corruption objectives 
systematically incorporated into the U.S. government's foreign 
assistance programming in Malaysia?

    Answer. Malaysia, as a high-middle income country, does not receive 
significant U.S. foreign assistance. If confirmed, I would seek to 
ensure all assistance programming in Malaysia is carried out in a 
manner consistent with U.S. law and with the strictest respect for our 
commitment to prevent and combat corruption.

                               __________
                               
               ambassador-designate lakdhir's responses 
                    to questions from senator rubio

    Question. In late June a night club in Malaysia was bombed at the 
direction of ISIL. Is Malaysia doing enough to combat the threat from 
ISIL? Are we concerned that the night club bombing could lead to 
additional ISIL attacks in Malaysia?

    Answer. The recent nightclub bombing, reportedly carried out with 
Da'esh influence, elevated the sense of urgency and reinforces the 
importance of the commitment shared by the United States and Malaysia 
to eradicating Da'esh. The Malaysian government takes seriously its 
role to protect its citizens against violent extremism, as evidenced by 
the over 180 Da'esh supporters arrested in the past three years. 
Malaysia recognizes the threat is real and has taken a number of 
significant steps towards combatting the threat of Da'esh. Malaysia 
joined the U.S.-led Global Coalition to Counter ISIL, and has signed 
two terrorist information sharing arrangements with the United States.
    If confirmed, I will work closely with the Malaysian government and 
people to support our global strategy to cut off ISIL's financing, 
dismantle its networks and supply lines, ensure fewer foreign fighters 
join, and ultimately eradicate ISIL.

    Question. ISIL launched publication of a new newspaper to recruit 
fighters from Malaysia, Indonesia, Brunei, Singapore, southern 
Thailand, and southern Philippines which apparently overlaps with the 
territory of their stated Southeast Asian caliphate. Are we focused on 
addressing the message from this newspaper?

    Answer. Malaysia's efforts to counter-Da'esh narratives are well 
underway, including a number of workshops supported by the United 
States and U.S. private sector participants. With significant support 
from the United States, Malaysia plans to launch its Digital Strategic 
Communications Division in July. If confirmed, I will do whatever I can 
to support these efforts.

                               __________



                              NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 20, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                              ----------                              

Hon. W. Stuart Symington, of Missouri, nominated to be 
        Ambassador to the Federal Republic of Nigeria
Andrew Robert Young, of California, nominated to be Ambassador 
        to Burkina Faso
Joseph R. Donovan, Jr., of Virginia, nominated to be Ambassador 
        to the Republic of Indonesia
                              ----------                              


    The committee met, pursuant to notice, at 10:31 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake [presiding], Rubio, Gardner, 
Markey, and Murphy.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today the committee will consider the nomination of three 
highly experienced career Foreign Service officers to be U.S. 
Ambassadors to Burkina Faso, Nigeria, and Indonesia. We never 
knew that Indonesia had become part of Africa. [Laughter.]
    Senator Flake. But we will take it for the day.
    Glad to have you here. I met with each of you in my office 
last week and appreciated you making time for that. I was, as I 
usually am, very impressed at the expertise and commitment and 
experience that you all bring to this potential new post.
    As the largest sub-Saharan African country, Nigeria remains 
of critical importance to the U.S. interests especially in the 
effort against Boko Haram. However, the stress of low global 
oil prices on Nigeria's economy is creating numerous challenges 
for President Buhari's administration and Nigeria's broader 
security.
    Burkina Faso is another West African country that recently 
achieved democratic transition of power first since its 
independence in 1966 with newly elected President Kabore. He 
enjoys considerable domestic and international goodwill. There 
are many economic, political, and security challenges he faces.
    Finally, Indonesia is the largest and one of the most 
important countries in Southeast Asia, a vital element to 
Asia's future development. Our close bilateral ties with the 
Indonesian Government in areas of trade, counterterrorism, and 
maritime security will need careful stewardship in the years 
ahead.
    I thank each of you for your time today. I am aware of the 
sacrifices that you make but, in particular, the sacrifices 
that your families make for you to serve in these posts.
    And with that, I will recognize the distinguished ranking 
member for a few comments. Senator Markey?

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. Thank 
you for having this hearing.
    Each of these countries presents important opportunities to 
advance American interests while helping to ensure peaceful and 
prosperous lives for hundreds of millions of people in two of 
the world's most dynamic and fastest growing regions.
    In August, I led a congressional delegation to West Africa 
that included a visit to Nigeria, a country that plays a 
critical role not only in its region but for the entire 
continent. When many think of Nigeria, they think of the 
security threats of Boko Haram and other extremist groups in 
the northeast or from piracy in the Gulf of Guinea. These 
threats are real and they are serious.
    But our visit also showed a dynamic and hopeful Nigeria. In 
Lagos, I met many brilliant young entrepreneurs whose 
innovative startups are creating a new knowledge-driven 
economy. Their work has extraordinary potential to lift many 
millions of Nigerians out of poverty and make the country a 
major player in the 21st century economy. The United States can 
be a critical partner in supporting the efforts of these 
Nigerian pioneers.
    Burkina Faso, which translates in English to the land of 
the upright people, also offers reasons for optimism about the 
future of West Africa. After decades of autocratic rule, the 
people peacefully demanded democratic reforms. They are now 
working to further those reforms, strengthening their political 
institutions and civil society and preserve a culture of peace 
and tolerance in a region threatened by growing extremism. Also 
essential are their efforts to reduce poverty by building 
inclusive and sustainable economic development in one of 
Africa's poorest countries.
    And last, at the center of economically dynamic Southeast 
Asia, Indonesia is a democracy and a secular state that also 
has a larger Muslim population than any other country in the 
world. Those facts stand as a clear rebuke to those who say 
that Islam is inherently antagonistic to democracy.
    So I thank you, Mr. Chairman, for holding this hearing, and 
we thank all of our nominees for being here today.
    Senator Flake. Well, thank you, Senator Markey.
    We will now turn to our nominees. The first nominee is 
Stuart Symington who served as Deputy Assistant Secretary of 
State for Central Africa and African Security Affairs since 
2015. His previous positions include serving as U.S. Ambassador 
to Rwanda and Djibouti. We were commenting in the office that 
Djibouti, Nigeria, about the same population, and everything 
else. So this is going to be a big change.
    Our second nominee, Andrew Young, most recently served as 
Deputy Chief of Mission in Mali. Previous assignments include 
South Korea, France, New Zealand, Burma, India, and Hong Kong. 
And I am sure he is going to find a way to practice his Korean 
skills in Mali as well.
    Last but not least, Joseph Donovan, who currently serves as 
Managing Director of the Washington Office of the American 
Institute in Taiwan, previously served as Foreign Policy 
Advisor to the Chairman of the Joint Chiefs of Staff at the 
Pentagon, also served in Hong Kong, Japan, China, South Korea, 
and Qatar.
    With that, we will recognize Ambassador Symington.

 STATEMENT OF HON. W. STUART SYMINGTON, OF MISSOURI, NOMINATED 
      TO BE AMBASSADOR TO THE FEDERAL REPUBLIC OF NIGERIA

    Ambassador Symington. Chairman Flake, Ranking Member 
Markey, to you and to all the distinguished members of the 
Senate Foreign Relations Committee, I want you to know how 
deeply honored I am to sit before you today as President 
Obama's nominee to serve as the Ambassador to the Federal 
Republic of Nigeria. I am grateful to the President and to 
Secretary Kerry for their confidence in my ability to lead U.S. 
engagement with one of, as you said, our most important 
partners on the African continent.
    I am also delighted to share with you the special pleasure 
I have to have my wife Susan; my son Stuart; my mother and 
father, Stuart and Janie Symington; brother John; and nephew 
Jack with us today. It is a remarkable testament to how at home 
and abroad they serve also with me, as they do with all other 
Foreign Service officers.
    Senator Flake. Where are they? Can they raise their hands 
here? The Symington family. All right.
    Ambassador Symington. Thank you, Senator.
    Mr. Chairman, I have spent half of my 30 years of public 
service working to advance peace, security, and prosperity for 
the people of the African continent. In all of these endeavors, 
including during my two jobs as Ambassador and my previous job 
in Washington as Deputy Assistant Secretary and Special 
Representative for the Central African Republic, I have learned 
one thing that matters most, and that is the partnerships that 
we form with the people of the place we work to advance our 
interests and the wellbeing of people.
    Nigeria is home to more than 180 million people. And as you 
said, Senator Markey, some of the most vibrant and 
entrepreneurial people in the world are there. The United 
States has in Nigeria a unique opportunity to engage 
productively in that vital partnership.
    In 2015, we showed that by the relentless U.S. diplomatic 
efforts and technical assistance, helping their national 
electoral commission that supported the people of Nigeria in a 
vote that became a peaceful change from one party to another 
for the first time in that nation's history.
    Additionally, our engagement with Nigerian health 
authorities helped to stop in the City of Lagos an Ebola 
epidemic which could have wreaked havoc with the most populous 
city in Africa.
    We welcome profoundly President Buhari's call to fight 
corruption and to make steps towards achieving that goal. I 
would just highlight his high profile public campaign, the 
institution of a single account, and his work to investigate 
corruption.
    Mr. Chairman, despite such progress, I am keenly aware of 
the profound challenges that remain. These include, as you 
pointed out the other day, Senator Markey, improving the 
climate for the telecommunications industry that could put so 
many people to work. They also include energy. The Power Africa 
legislation and the Electrify Africa effort that you all backed 
can make a profound difference on the continent. It includes 
health where we are spending most of our money and the 
governance of health, which is so critical to make sure it gets 
where it is needed. It also includes justice, human rights, and 
education.
    Finally, with all the other countries of this region and 
many others around the world, Nigeria faces, as you mentioned, 
an extraordinary terrorist threat from Boko Haram. Boko Haram, 
which in March 2015, declared its affiliation to ISIL, has 
killed tens of thousands, kidnapped thousands, displaced many 
more, and today threatens a large segment of the population. 
Nigeria and its neighbors have driven Boko Haram out of much of 
the territory that it controlled in 2015. However, its attacks 
have now created a humanitarian crisis of extraordinary 
proportions, and the group still continues to challenge state 
authority in many places as the government works to reengage 
with and provide services to the people in that territory.
    Nigeria also faces serious security and governance 
challenges in the south in the Niger Delta where militants have 
attacked critical oil infrastructure, slashing oil output and 
slowing Nigeria's economic growth at a time of falling oil 
prices.
    Security problems are significant. Addressing them is 
critical, but it has to be done in a proactive, consensus-
oriented, and achieving manner that prioritizes both security 
and the connection with the local communities that is the true 
heart of lasting security in any part of the world.
    As the people of Nigeria pursue solutions to these 
challenges, for both practical and moral reasons, the United 
States has a profound interest in their success. As we work 
together to address those challenges, we will continue to work 
with Nigerian partners to ensure human rights are fully 
protected. These rights are profoundly important to the people 
of Nigeria and their future, just as they are to us. Nigeria 
has the resilience and ability to overcome these problems by 
drawing on the strengths of its people, on their energy and 
vitality, and on Nigeria's other great natural resources.
    If confirmed, I will work with those in the public and 
private sector to create opportunities for the people of 
Nigeria to grow and diversify their economy. Its success is not 
just important to Nigeria. It is important to the continent and 
to the world. Facing the tough challenges ahead together, our 
partnership with Nigeria aims to see that Nigeria becomes both 
an anchor of prosperity and stability and an outstanding role 
model for other developing countries around the world.
    Mr. Chairman, these are great challenges, but if confirmed 
as your Ambassador and the Ambassador of the United States, I 
look forward to working with every member of what is a truly 
extraordinary U.S. mission, a team both in Abuja and in Lagos, 
to advance U.S. interests, to strengthen our partnership with 
Nigeria, and to ensure the safety and security of all our 
citizens. If confirmed by the Senate, I look forward especially 
to working on this critical agenda with you and your colleagues 
and with all those who are inspired, as you are, to continue 
this effort on the continent of Africa.
    I thank you very much for your invitation today and welcome 
your questions.
    [The prepared statement of Ambassador Symington follows:]


               Prepared Statement of W. Stuart Symington

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the committee, I am deeply honored to appear before you today as 
President Obama's nominee to serve as the next Ambassador to the 
Federal Republic of Nigeria. I am grateful to the President and to 
Secretary Kerry for their confidence in my ability to lead U.S. 
engagement with one of our most critical bilateral partners on the 
African continent. It is a special pleasure to have my family with me 
here today as they have been at every step of my diplomatic career.
    Mr. Chairman, I have spent half of my more than 30 years of public 
service working to advance U.S. efforts to support the peace, security, 
and prosperity of Africa and its people. In all these endeavors, 
including during two prior postings as Ambassador and my present work 
in Washington as Deputy Assistant Secretary of State for African 
Affairs, I have seen that what matters most are the partnerships we 
form that advance the well-being of people.
    Home to as many as 180 million people and Africa's most populous 
country, Nigeria provides a unique opportunity to engage productively 
in partnerships. We have a chance to build on recent successes as we 
face the challenges ahead. In 2015, relentless U.S. diplomatic efforts 
and technical assistance to Nigeria's Independent National Electoral 
Commission supported the people of Nigeria as millions voted in a 
credible elections process. Nigeria saw the peaceful transition of 
power from one political party to another for the first time in its 
history.
    Additionally, U.S. engagement with Nigerian health authorities 
helped contain Ebola in the dense population center of Lagos, averting 
a public health catastrophe in Africa's most populous city.
    We welcomed President Buhari's call to fight corruption and his 
government's initial steps towards that goal. These include high-
profile investigations, the use of a single auditable treasury account 
for receipt of all public funds, and steps to reform the state oil 
company and the military procurement process, as well as an ongoing 
public campaign against corruption.
    Mr. Chairman, despite such progress, I am keenly aware that 
profound challenges remain in many areas, including health, energy, 
economic growth and job creation, governance, justice, human rights, 
and education. Similar to other countries in the region, Nigeria 
continues to face an extremist threat. Boko Haram, which in March 2015 
declared its affiliation to ISIL, has killed tens of thousands, 
displaced many more, and threatened large segments of the population. 
Nigeria and its neighbors, Cameroon, Chad, and Niger, successfully 
drove Boko Haram out of much of the territory the group had controlled 
in 2015. However, Boko Haram still challenges state authority in the 
Northeast as the government endeavors to hold and provide services in 
territory it has regained, and Boko Haram's attacks have created a 
humanitarian crisis.
    Nigeria also faces serious security and governance challenges in 
the Niger Delta, where militants have attacked critical oil 
infrastructureslashing oil output and slowing Nigeria's economic 
recovery in a period of already reduced oil revenue. Security problems 
are significant and addressing them in a proactive, consensus-oriented 
manner that prioritizes dialogue with local communities is one of 
Nigeria's heaviest responsibilities.
    As the people of Nigeria pursue solutions to these challenges, for 
both practical and moral reasons, the United States has a profound 
interest in their success. As we work together to address those 
challenges, we will continue to work with our Nigerian partners to 
ensure human rights are fully protected. Those rights are profoundly 
important to the people of Nigeria and to their future, just as they 
are to us.
    Nigeria has the resilience and ability to overcome these problems 
by drawing on the strengths of its people, on their energy and 
vitality, and on Nigeria's other great natural resources. If confirmed, 
I will work with those in the public and private sector to create 
opportunities for the people of Nigeria to grow and diversify their 
economy.
    In conclusion, Nigeria's success is not just important to Nigeria 
but it's important to the continent and the world. As President Obama 
said in advance of his bilateral meeting with President Buhari in 
Washington D.C., ``We are looking forward to hearing.how the United 
States can partner with Nigeria so that Nigeria ends up being an anchor 
not only of prosperity and stability [on the continent], but can also 
be an outstanding role model for developing countries around the 
world.''
    Mr. Chairman, I have been fortunate to work in public service and 
particularly on African issues for so many years. If confirmed I look 
forward to working with our truly extraordinary U.S. Mission team in 
Nigeria and, as Chief of Mission, to ensure the safety, security, and 
productivity of all U.S. citizens as we work together to advance U.S. 
interests in Nigeria.
    Should I have the fortune to receive the confirmation of you and 
your Senate colleagues, I look forward to working on this critical 
agenda and inspiring others to contribute to this effort. I thank you 
for your invitation today, and I welcome any questions you might have.


    Senator Flake. Thank you, Ambassador Symington.
    Mr. Young?

 STATEMENT OF ANDREW ROBERT YOUNG, OF CALIFORNIA, NOMINATED TO 
                 BE AMBASSADOR TO BURKINA FASO

    Mr. Young. Mr. Chairman, Mr. Ranking Member, for a diplomat 
who has spent 25 years serving his country on five continents 
across the globe, there is no greater honor that I can feel 
today than to be before you today as President Obama's nominee 
to be the next Ambassador to Burkina Faso. I am humbled by the 
support that Secretary Kerry entrusted in me for this 
nomination.
    I am joined today by Margaret Hawley, my spouse, my 
partner, and fellow Foreign Service officer, and my son Nathan, 
who is a student at American University. My daughter Claire, a 
student at Yale; and my mother, who is in an adobe house in 
California; sister Danee and brother Jon and broker Blair and 
in-laws are monitoring this from the feed from the west coast. 
And if my dad were here, he would be the fellow with the big 
grin smiling and illuminating the rest of the room with his 
irrepressible enthusiasm.
    Mr. Chairman, Mr. Ranking Member, my love for Africa began 
30 years ago as an intern at our embassy in Central African 
Republic-Bengui. You know, while we endured the power outages 
and gamma globulin shots that hurt like the dickens and we had 
terrorist attacks and monitored the trial of former Emperor 
Bokassa for unmentionable crimes, we also engaged the team to 
help people lift themselves out of poverty, to address health 
care concerns, and to address education for women and girls and 
human rights.
    I cherished what I learned in a small town in the heart of 
Africa and it inspired me to take a master's degree in African 
studies and to work for the Commerce Department in the Overseas 
Private Investment Corporation to support private sector 
investment in Africa.
    I then joined our diplomatic service where I saw firsthand 
the importance of putting promotion of democracy at the 
forefront of U.S. foreign policy.
    Last year, I was honored to receive the State Department's 
Mark Palmer Award for Democracy for work that I had done in 
Burma with Aung San Suu Kyi and my work here on Capitol Hill as 
a legislative fellow and also in Mali where, as you said, Mr. 
Chairman, I served for 3 years as Deputy Chief of Mission.
    If confirmed as the next Ambassador to Burkina Faso, I will 
draw upon these experiences to advance our interests 
prioritizing three core areas: good governance, security, and 
equitable development. As Senator Markey mentioned, the 
Burkinabe people bravely demonstrated their commitment to 
democracy in 2014 by standing firm to stop ex-President 
Campaore from undermining the constitution and extending his 
27-year rule. Doing what is right and not what is easy, 
Burkinabe civil society with the support of friends, including 
the United States, stood firm and faced the guns of the 
presidential guard who attempted to seize power in 2015. And 
when given the opportunity to express their views at the ballot 
box, the Burkinabe people again stood up and voted in record 
numbers in elections in 2015 and 2016, elections that were 
judged widely as free, fair, and transparent. And today, as 
Senator Markey said, the leadership that is in place in Burkina 
Faso consents with the consent of the governed. But that 
democracy, that democratic transition, as you said, Senator, 
remains fragile.
    If confirmed, I would seek your support and your guidance 
to help the Burkinabe people consolidate that democracy as a 
bulwark against the instability that reigns in that tough 
neighborhood, which is the Sahel. Al Qaeda in the Islamic 
Maghreb and other terrorist groups based in Mali--they export 
death and insecurity throughout the region.
    If confirmed, my second priority would be to address those 
security concerns, including the types of deadly attacks that 
have occurred in Ouagadougou and in Mali that I saw firsthand 
during my time in Mali. But in security, we have a strong 
partner in the people of Burkina Faso. They have deployed more 
than 12,000 peacekeepers in the toughest spots around the 
world, standing watch in our common interests--to promote our 
common interests since 1993.
    So if confirmed, I would work through these existing 
programs and also new opportunities like you know, like the 
National Guard State Partnership Program to help emphasize and 
support indigenous capacities for Burkina Faso to deter and to 
respond to the types of terrorist threats that we have seen and 
to advance our common goals to combat violent extremism in the 
Sahel.
    Priority three would be equitable development, which 
reinforces good governance and security. One of the brakes on 
Burkina Faso's growth has been inadequate infrastructure. 
Burkina successfully completed a 5-year, $480 million 
Millennium Challenge compact in 2014 that made great advances 
to unlock the country's potential. Our adept USAID and Centers 
for Disease Control teams--they play key roles in multi-sector 
resiliency programs. And Burkina Faso, as you said, Senator, a 
land of integrity, of upright people, they have earned high 
praise for their effective use of valuable external assistance. 
New resources could jump start Burkina as that bulwark against 
instability in the Sahel.
    Strong people-to-people ties embrace innovative exchange 
programs and a vibrant Peace Corps presence that includes 
efforts focused on an issue near and dear to my heart, engaging 
youth and empowering women and girls.
    Mr. Chairman, Mr. Ranking Member, you know, as we meet in 
this historic chamber, I am struck again by the awesome 
responsibility levied on an ambassador to protect fellow 
Americans. I have faced that responsibility during my time in 
Mali and when we confronted terrorism and defeated the Ebola 
threat. If confirmed, I will, above all, endeavor to protect 
American citizens and interests abroad. I will work to support 
good governance, which is the bedrock of effective society that 
reflects our shared values. And I would seek to advance U.S. 
national security while promoting equitable development.
    And finally, if confirmed, I would look to you for counsel 
and support to advance these common interests.
    I welcome your questions and thank you so much for 
considering my nomination.
    [The prepared statement of Mr. Young follows:]


                 Prepared Statement of Andrew R. Young

    Mr. Chairman, Mr. Ranking Member, and other members of the 
committee, for a Foreign Service Officer who has spent 25 years serving 
his country on five continents across the globe, I can tell you there 
is no greater honor for me than to appear before you as President 
Obama's nominee for United States Ambassador to Burkina Faso. I am 
humbled by Secretary Kerry's support to take on this responsibility. I 
am joined by Margaret Hawley, my wife, partner and fellow Foreign 
Service Officer for the past 26 years and my son Nathan, who studies at 
American University. My daughter Claire, a sophomore at Yale, is 
following the live stream as is my mother, Joyce, who is watching from 
her adobe house in Bakersfield California, and my sister Danee from 
Denver, brothers Jon from California and Blair from Oregon. Were he 
still with us, I think my irrepressible father, Bob, would be literally 
glowing from the front row.
    My love for Africa began thirty years ago as an intern at the U.S. 
Embassy in Bangui, Central African Republic. While we endured power 
outages, gamma globulin shots that hurt like the dickens, a terrorist 
hijacking, and the trial of former Emperor Bokassa for unmentionable 
crimes, we also worked as a team to support human rights, empower women 
and girls, and encourage self-help projects to lift people out of 
poverty. I cherished what I learned from life in a small town in the 
heart of Africa. After that, I received a Master's Degree in African 
Studies, and worked at the U.S. Department of Commerce and the Overseas 
Private Investment Corporation to support the private sector in Africa. 
Joining our diplomatic service, I saw first-hand the importance of 
promoting democracy as a key component of our foreign policy. I was 
honored last year to receive the State Department's first Mark Palmer 
Award for the Promotion of Democracy for actions taken in Burma, on 
Capitol Hill when I was a Legislative Fellow for Senator Lieberman and 
in Mali where I have just completed three years as Deputy Chief of 
Mission. If confirmed as the next U.S. Ambassador to the Republic of 
Burkina Faso, I will draw upon these experiences to advance U.S. 
interests in Africa.
    There is a good reason that the name Burkina Faso means ``Land of 
the People of Integrity.'' Integrity is a key value for the Burkinabe 
who are strong partners of the United States in our common struggle to 
promote democracy, development, and to fight instability. Inspired to 
do what is right, not what is easy, Burkinabe civil society, with the 
support of friends including the United States, took actions in 2014 to 
stop the actions of then President Compaore to undermine the 
institution of the constitution, to restore democratic governance, and 
to confront some elements of the Presidential Security Regiment's 
attempt to disrupt democratic transition in 2015. Presidential, 
legislative, and municipal elections in 2015 and 2016 were judged free 
and transparent. New leadership is in place, empowered by the consent 
of the governed. But that democratic transition remains fragile. If 
confirmed, I would prioritize supporting the Burkinabe to consolidate 
their democracy and seek your support to nurture a nation that 
confronts a host of challenges.
    Burkina Faso is in a tough neighborhood. Al-Qaeda in the Islamic 
Mahgreb and other terrorist groups like al-Mouribitoune based in Mali 
export death and violence to the region. I witnessed this first-hand 
during multiple terrorist attacks in Mali. Within its means, Burkina 
Faso has been a valued partner in promoting regional security and 
combating terrorism. Deploying peacekeeping troops in places like Mali 
and Darfur, Burkina Faso has been a security provider in Africa. Since 
1993, Burkina Faso has contributed more than 12,000 peacekeepers around 
the world and currently has more than 3,000 deployed. Burkina Faso 
hosts more than 32,000 Malian refugees with humanitarian assistance 
from the United States. If confirmed, I would work to build on this 
solid base through these programs and others like the Trans-Sahara 
Counterterrorism Partnership (TSCTP) to enhance Burkina Faso's 
capacities in our common efforts to combat and prevent violent 
extremism.
    One of the brakes on Burkina Faso's growth has been inadequate 
infrastructure, especially in the energy sector. Burkina Faso completed 
a five-year $480.9 million Millennium Challenge Corporation (MCC) 
compact in 2014 focused on agriculture, girls' education, and rural 
development. The positive reports on Burkina Faso's effective use of 
these scarce and valuable resources and the country continuing to pass 
its scorecard would make Burkina Faso eligible to be considered for a 
second compact.
    People-to-people links between the United States and Burkina Faso 
have grown ever stronger through a vibrant Peace Corps presence that 
today includes more than 114 volunteers who serve throughout the 
country in Health, Economic Development, and Education--particularly 
focused on an issue near and dear to my heart; engaging youth and 
empowering women and girls. In addition, our people-to-people links 
include engaging future leaders such as the innovative Young African 
Leaders Initiative that includes the Mandela Washington Fellows, 
Fulbright, Humphrey, and International Visitor exchange programs. If 
confirmed, I would welcome your support for these programs that help 
empower Burkinabe partners to address the root causes of the challenges 
facing the region.
    If confirmed, my priorities will be to promote democracy and good 
governance; advance peace and security; and, promote equitable economic 
opportunity and development. With the interagency team and the support 
of Congress, I would draw on my recent experience in Mali and 
innovative whole-of-government programs to work in tandem with the host 
government to strengthen democratic and governance institutions to 
support transparency, human rights, religious freedom, rule of law and 
justice, and citizen participation and representation.
    Having seen first-hand the challenging security environment of the 
Sahel during a number of terrorist attacks, if confirmed, I would 
prioritize security cooperation in ways that support Burkinabe forces' 
efforts to enhance capacity and professionalism to maintain public 
order, protect borders, counter terrorism, cooperate regionally, and 
continue peacekeeping operations. To do so, I would ask for your 
support for the sustained partnership and mentoring programs I have 
seen work well in neighboring countries. Finally, if confirmed I would 
seek to build on previous efforts--such as the African Growth and 
Opportunity Act (AGOA), Power Africa, and Millennium Challenge 
Corporation investments to increase and sustain economic well-being 
with trade and investment in Burkina Faso. Together, our team would 
build on efforts to foster Burkinabe resilience and capacity to address 
the challenges of economic opportunity, demographic and environmental 
change in our common interest.
    If confirmed, my priorities would be to maximize the effectiveness 
of our cooperation with Burkina Faso. I will above all endeavour to 
protect American citizens and interests, advance U.S. national security 
in the Sahel region support good governance as the bedrock of an 
effective society that reflects American values in all interactions 
with the government and people of Burkina Faso. If confirmed, I will 
look to you for counsel and support as I seek to build on the 
achievements of Ambassador Tulinabo Mushingi and his team in advancing 
our shared values and common interests. I welcome any questions you may 
have.
    Thank you very much for your consideration of my nomination.


    Senator Flake. Thank you, Mr. Young.
    Mr. Donovan?

STATEMENT OF JOSEPH R. DONOVAN, JR., OF VIRGINIA, NOMINATED TO 
           BE AMBASSADOR TO THE REPUBLIC OF INDONESIA

    Mr. Donovan. Mr. Chairman, Mr. Markey, thank you very much 
for this opportunity to appear before you today as the 
President's nominee to become the next U.S. Ambassador to the 
Republic of Indonesia. I am deeply grateful to President Obama 
and Secretary Kerry for placing their confidence in me and for 
the incredible opportunity to serve the United States in this 
country of such importance to us.
    I would also like to introduce my wife, Meo Chou, and our 
two sons, James and Matthew. Without their love, support, and 
sacrifices, I would not be here before you today.
    Mr. Chairman, Indonesia is an increasingly important player 
on the world stage. It is the world's third largest democracy, 
the most populous Muslim majority nation, and an emerging 
economic leader. Indonesia is a member of the G-20, the World 
Trade Organization, APEC, and a leader in the Association of 
Southeast Asian Nations. Indonesia is also a tolerant and 
diverse Muslim majority country, and its historic peaceful 
transition to democracy has important lessons for other nations 
in transition.
    Put simply, it is in our national interest to continue to 
grow an effective partnership with this dynamic nation. Today, 
the United States and Indonesia enjoy excellent relations. 
During President Jokowi's October 2015 visit to Washington, we 
committed to forge a strategic partnership based on shared 
interests and common values that focuses on deepening people-
to-people ties, enhancing security cooperation, strengthening 
our economic ties, and increasing collaboration on global and 
regional issues.
    We share an abiding interest in addressing challenges on 
the international stage. The United States looks to Indonesia 
as a valued partner in areas such as counterterrorism, 
environmental conservation, peacekeeping operations, and the 
regional promotion of human rights and democratic governance. 
Indonesia is a key partner in our efforts to promote regional 
prosperity and stability.
    Our development cooperation through USAID and the 
Millennium Challenge Corporation is a key tool for our 
strategic engagement with Indonesia. Working with a wide range 
of partners, government, the private sector, civil society 
groups, and educational institutions, we are advancing U.S. 
interests by promoting a more prosperous, democratic, and 
resilient Indonesia. Our development partnership focuses on 
areas of importance to the Indonesian people. We seek to 
augment their efforts to build capacity and improve governance, 
including in such areas as environmental protection, health, 
and countering violent extremism.
    U.S.-Indonesia defense cooperation has never been stronger 
or more comprehensive than it is today, and we are proud to be 
Indonesia's top defense partner in joint exercises and other 
engagements.
    If confirmed, my priority will be to continue to forge an 
even more effective strategic partnership between our two 
nations. I will pursue opportunities for U.S. business, for 
example, by promoting U.S. solutions to Indonesia's 
requirements in the power and aviation sectors. Likewise, I 
will endeavor to use our trade and investment framework 
agreement talks to reduce legal and regulatory impediments to 
trade and investment.
    I will continue our close cooperation on counterterrorism, 
as we combat the threat of ISIL.
    I will look to enhance education cooperation by increasing 
the number of Indonesian students studying in the United 
States, promoting U.S. education, and facilitating partnerships 
between U.S. and Indonesian universities and scientific 
institutions.
    I will utilize public diplomacy programs such as the Young 
Southeast Asia Leaders Initiative to project America's values 
and emphasize our respect for human rights and the rights of 
members of religious minorities, as well as our opposition to 
human trafficking.
    Mr. Chairman, during my Foreign Service career, I have been 
fortunate to serve the United States in both Washington and in 
East Asia and the Middle East. If confirmed, I will use my 
experience to lead our mission in Indonesia to tackle the 
challenges of the 21st century, including the oversight of 
security and safety for our personnel in Jakarta and our two 
constituent posts in Surabaya and Medan. If confirmed, I will 
look forward to working with this committee and with the Asia 
Subcommittee and the full committee and engaging with each of 
you, whether here in Washington or during your visits to the 
region, as we continue to promote our interests in Indonesia.
    Thank you for this opportunity to appear before you today. 
I am honored to take your questions.
    [The prepared statement of Mr. Donovan follows:]


              Prepared Statement of Joseph R. Donovan, Jr.

    Mr. Chairman, Ranking Member Markey, and members of the committee, 
thank you for the opportunity to appear before you today as the 
President's nominee to become the next U.S. Ambassador to the Republic 
of Indonesia. I am deeply grateful to President Obama and Secretary 
Kerry for placing their confidence in me and for the incredible 
opportunity to serve the United States in this country of such 
importance to us.
    I would also like to introduce my wife, Mei Chou, and our two sons, 
James and Matthew. Without their love, support and sacrifices, I would 
not be here before you today.
    Mr. Chairman, Indonesia is an increasingly important player on the 
world stage. It is the world's third-largest democracy, the most 
populous Muslim-majority nation, and an emerging economic leader. 
Indonesia is a member of the G20, the World Trade Organization, APEC, 
and a leader in the Association of Southeast Asian Nations. Indonesia 
is a tolerant and diverse Muslim-majority country and its historic, 
peaceful transition to democracy has important lessons for other 
nations in transition.
    Put simply, it is in our national interest to continue to grow an 
effective partnership with this dynamic nation.
    Today, the United States and Indonesia enjoy excellent relations. 
During President Jokowi's October 2015 visit to Washington, we 
committed to forge a strategic partnership based on shared interests 
and common values that focuses on deepening people-to-people ties, 
enhancing security cooperation, strengthening our economic 
relationship, and increasing cooperation on global and regional issues.
    We share an abiding interest in addressing challenges on the 
international stage. The United States looks to Indonesia as a valued 
partner in areas such as counterterrorism, environmental conservation, 
peacekeeping operations and the regional promotion of human rights and 
democratic governance. Indonesia is a key partner in our efforts to 
promote regional prosperity and stability.
    Our development cooperation through USAID and the Millennium 
Challenge Corporation is a key tool for our strategic engagement with 
Indonesia. Working with a wide range of partners--government, the 
private sector, civil society groups, and educational institutions--we 
are advancing U.S. interests by promoting a more prosperous, democratic 
and resilient Indonesia. Our development partnership focuses on areas 
of importance to the Indonesian people. We seek to augment their 
efforts to build capacity and improve governance, including in such 
areas as environmental protection, health, and countering violent 
extremism.
    U.S.-Indonesia defense cooperation has never been stronger or more 
comprehensive than it is today, and we are proud to be Indonesia's top 
defense partner in joint exercises and other engagements.
    If confirmed, my priority will be to continue to forge an even more 
effective strategic partnership between our two nations. I will pursue 
opportunities for U.S. business, for example, by promoting U.S. 
solutions to Indonesia's requirements in the power and aviation 
sectors. Likewise, I will endeavor to use our Trade and Investment 
Framework Agreement talks to reduce legal and regulatory impediments to 
trade and investment. I will continue our close cooperation on 
counterterrorism as we combat the growing threat of ISIL. I will seek 
to enhance education cooperation by increasing the number of 
Indonesians studying in the United States, promoting U.S. education, 
and facilitating partnerships between U.S and Indonesian universities 
and scientific institutions. I will utilize Public Diplomacy programs, 
such as the Young Southeast Asian Leaders Initiative (YSEALI), to 
project America's values and emphasize our respect for human rights and 
the rights of members of religious minorities, as well as our 
opposition to human trafficking.
    Mr. Chairman, during my Foreign Service career, I have been 
fortunate to serve the United States in both Washington and in 
assignments in East Asia and the Middle East. If confirmed, I will use 
my experience to lead our mission in Indonesia to tackle the challenges 
of the 21st century, including the oversight of security and safety for 
our personnel in Jakarta and our two constituent posts in Surabaya and 
Medan. If confirmed, I will look forward to working with this committee 
and engaging with each of you, whether here in Washington or during 
your visits to the region, as we continue to promote our interests in 
Indonesia.
    Thank you for this opportunity to appear before you today. I am 
honored to take your questions.


    Senator Flake. Thank you all. Thank you all for your 
testimony.
    I will start the round of questions.
    Ambassador Symington, what is the biggest difference with 
the new government now, the Buhari government, as opposed to 
the Jonathan government in terms of our security cooperation 
with Nigeria? What opportunities do we have now that we did not 
before?
    Ambassador Symington. Senator, thank you for that question 
and for the focus on the differences.
    The single greatest difference is Buhari's forthright 
understanding of the importance of tackling both security 
challenges and the corruption that feeds them in many parts of 
the world.
    I think that as he thinks of the tasks ahead, what he needs 
in part is the kind of teamwork with his neighbors and with 
other partners, including us, that is essential to address this 
issue. And he also needs to keep working across the board to 
make sure that his government is seen to deliver the sorts of 
services to those who have been affected by terrorism that can 
win them to the cause because the security threats they face 
are too great for governments alone to handle.
    And so I would say that as we work with him in the days 
ahead, as we think of ways that we can train, ways that we can 
equip, ways that we can inform, ways that we can help with 
logistics and flesh out strategies and teamwork, what we have 
in President Buhari and his government is a willing partner 
genuinely interested in using resources well to enhance the 
welfare of his people. So if in the days ahead we can continue 
on that course, making wise decisions about how best we can 
help deal with one part of what is an absolutely clear global 
threat against not just Nigerians but us, I think we will be 
well served, Senator.
    Senator Flake. Thank you.
    Mr. Young, talk for a minute, if you can, drawing on your 
experience in other African countries as well and most recently 
in Mali. How does our soft power or programs through USAID and 
Millennium Challenge and others help in terms of security 
cooperation in these countries? Is it a necessary part? Is it 
helpful or not?
    Mr. Young. Thank you, Senator. I think you have honed in on 
exactly one of the great attributes we have to advance our 
national interests in places like Mali and in places like 
Burkina Faso, were I confirmed to be able to serve there.
    We have an extraordinary high level of public support in 
both those countries. The United States is perceived to be a 
partner who looks to support the common interests of our 
partners in Burkina Faso and our partners in Mali where I 
recently spent 3 years. And I think that that opens the door 
for us to find that common interest to solve a problem. I can 
give you some examples.
    When we were in Mali, the team worked very, very carefully 
to develop a security component, and in that security 
component, we had a national guard team that showed goodwill 
but lacked training and capacity. Through a series of 
interventions, we helped this team respond and create a quick 
reaction force that helped provide security around our embassy. 
Later we continued a mentoring program. That quick reaction 
force was able to follow behind some of our teams that 
responded to the attack on the Radisson Hotel, again showing 
their capacity to take the fight to the enemy under the 
leadership and partnership with Americans.
    And then finally, a neighbor was attacked about 400 meters 
from the embassy a few months later. That quick reaction force 
responded directly under their own initiative to provide 
lifesaving aid to their fellow citizens. I think that sort of 
teamwork that we empower enables us to advance our common 
interests.
    Senator Flake. Thank you.
    Mr. Donovan, we are right now in discussions, obviously, or 
negotiation with TPP. Can you talk a little about the 
importance of engaging trade with Indonesia? Obviously, we want 
to make sure that Southeast Asian countries are part of our 
trade orbit and do not only have China as an option. How 
important is it for us to engage?
    Mr. Donovan. Thank you, Senator.
    Certainly when we look at the rebalancing strategy, it has 
at least three legs to it. One is on the security area. Another 
is the growth and development of regional organizations or 
regional architecture, if you will. And the third is trade. And 
TPP plays a major role in the trade leg of this. Indonesia has 
expressed an interest, as have others in participating in TPP, 
and as we have with others, we have welcomed Indonesia's 
interest in participating at some point in the future in TPP 
and, as we have said with others, if and when they are 
qualified to take the steps in order to do that.
    Overall, though, I think it is also important to recognize 
that our overall trade with Indonesia last year was about $27 
billion. The American Chamber of Commerce, just in a meeting 
last week--the American Chamber of Commerce in Jakarta in a 
meeting last week stated that our economic relationship with 
Indonesia is very strong, but the opportunities are immense. 
And I think that says it all in terms of the possibilities for 
going forward that we can do with Indonesia on trade. We look 
at it in terms of regulatory issues and encouraging them 
through our trade and investment forum agreement meetings to 
relax some regulatory restrictions that are placed on American 
products. Also we look for ways to encourage American 
investment in Indonesia, which we think also is a very positive 
force.
    All of these areas I think combine as part of our economic 
relationship and showing that the future could be immense for 
us in Indonesia.
    Senator Flake. Thank you.
    Mr. Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Symington, I was in Nigeria last month, and I was told 
that 1 million doses of the medicine for HIV/AIDS had actually 
just been stolen and disappeared even though that government is 
part of our program to help to ensure that that type of aid 
reaches the people who need it the most. And of course, that 
medicine could then be sold on the black market for a lot more 
money.
    So I guess my question to you is that the Buhari government 
has promised reforms that promised that they are going to try 
to root out the deep corruption that has historically existed 
inside of that country. Can you give us, from your perspective, 
a progress report on how successful this new government has 
become?
    Ambassador Symington. Senator, thank you for highlighting 
what is I think their greatest challenge. It is to go beyond 
the statements to the practice.
    Let me just say that one of the most important ways to make 
sure that you tackle corruption is to get the facts. And one of 
the things that we have done is to engage with them across the 
board to ensure that we have accurate information on the use of 
not only our resources but theirs. And that statistical 
challenge is one that we are working with our partners on every 
day.
    The second thing is that when there are problems, you need 
to hold people accountable, and my understanding is that some 
changes in the team that work on health in Nigeria reflect an 
effort to ensure accountability.
    So I think that they have got remarkable challenges ahead, 
but none is more important than to actually deliver the kind of 
goods and services not just supplied by the Nigerians but by 
their international partners, including the United States, to 
the people of Nigeria. They have said that that is their goal, 
and I think it is vital that we work with them to make sure 
that they achieve it.
    Senator Markey. Thank you.
    Mr. Young, the people in Burkina Faso--they live in a very 
dangerous neighborhood. There are terrorist groups coming from 
pretty much all directions towards that government. And I guess 
my question to you is what do you think the chances are of this 
government not ultimately being able to withstand its own 
internal stresses and that it could be overturned in a way that 
did not reflect its democratic values.
    Mr. Young. So thank you, Senator. You highlight the 
challenge before us, but I think you also in your introduction 
highlighted the core resource upon which we can build to 
address that problem.
    Burkina Faso, a land of people of integrity--this is an 
historic opportunity for us to invest in that fragile democracy 
and invest in those nascent security institutions to ensure 
that our interventions and the will of the Burkinabe people to 
build a democracy at this crucial point in their history 
reaches its fruition. So I would say this is an opportunity for 
us to inoculate this fragile democracy from the challenges, and 
if I were confirmed, I would keep your question and your themes 
at the forefront of every activity that I would do to move 
forward.
    Senator Markey. Thank you.
    And, Mr. Donovan, there is a country of vast size and 
resources that you are being nominated to represent the United 
States. They have, unfortunately, much illegal logging that 
goes on. Their forests are ultimately central to, like the 
Amazon, providing the lungs for the planet. There is much 
corruption around this entire sector inside of their country, 
and yet we are hoping and expecting them to comply with these 
international goals that were set in Paris last December.
    Could you talk, from your perspective, about the role that 
you expect Indonesia to play and how you would intend on 
keeping them accountable to meeting the goals that have been 
established for them?
    Mr. Donovan. Thank you, Senator. I think you point out two 
very important areas of cooperation that we have with 
Indonesia. One would be on the fight against corruption, and 
the other would be on climate change and biodiversity and 
environmental protection. They are, as you noted, very closely 
interrelated with each other.
    And I cannot emphasize enough these are areas that we 
partner with Indonesia together, but they are also areas that 
Indonesia has identified as important priorities for themselves 
and for cooperation with us. This is really a true partnership 
and it is a two-way street.
    With regard to corruption, we cooperate with not only the 
Indonesian Government, President Jokowi and his government, but 
also with civil society in Indonesia. And we really have three 
objectives as we move forward on it. One is to strengthen the 
Government of Indonesian bodies that are responsible for the 
fight against corruption. The most prominent of them is an 
organization called KPK, which is corruption eradication 
commission.
    Another area that we work on is to promote an anti-
corruption culture within Indonesia.
    And the third would be to take steps to strengthen the rule 
of law.
    All of these again we do in cooperation with the Indonesian 
Government and with Indonesians themselves. We work on these in 
different ways. We offer assistance and training for 
prosecutors. We speak out in public. We attempt to work with 
civil society organizations to build on this culture, but also 
we provide training and other assistance on it.
    With regard to biodiversity and climate change, we are 
working very hard to help Indonesia to achieve its goals that 
it has declared in terms of curbing its own carbon emissions. 
We have programs both from the Millennium Challenge Corporation 
and from USAID in such areas as land use, also in terms of both 
training and how you manage the land, what you can do to reduce 
emissions, and also in health areas as well.
    So all of these I think are areas that we work very, very 
closely with the Indonesian people and the Indonesian 
Government on.
    Thank you.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman. Thank you for 
accommodating Mr. Donovan's hearing this morning. Thank you 
very much for making that happen on the itinerary today.
    And to the fine members of the Foreign Service, thank you 
for your service and commitment to our country.
    Mr. Donovan, I had the pleasure of meeting you in my office 
a couple of weeks ago and look forward to this confirmation 
hearing and the remaining of the process.
    A couple of questions that we covered in the office when we 
had a chance to visit. What do you think the highlights of the 
U.S.-Indonesia relationship have brought to us so far, areas 
that we should look at as examples of success to this point?
    Mr. Donovan. Thank you, Senator, for that question.
    I think there are a number of areas where our cooperation 
has increased and where Indonesia is certainly demonstrating 
regional leadership. One area would be in the fight against 
counterterrorism. For instance, in the last several weeks, 
Indonesia has hosted regional conferences, both on the fight 
against foreign fighters and in a second conference, on the 
effort to curb foreign terrorist financing. And that certainly 
is a major step forward and a good thing as far as we are 
concerned.
    Also we are partnering with Indonesian civil society in the 
formation of a religious diversity, Muslim diversity, 
conference that was just held several days ago. In this 
particular conference, the State Department representative to 
Muslim communities and the embassy both participated. And this 
is an example of Indonesia showing leadership as a diverse but 
tolerant, moderate Muslim nation and acting as a role model. I 
think all of those areas have been particularly important.
    Senator Gardner. You mentioned the issue of 
counterterrorism. How many Indonesians are currently fighting 
with ISIL in Syria or other terror groups?
    Mr. Donovan. Thank you, Senator.
    I have seen a number of different statistics, and what I am 
going to give you I think is probably a better idea of not the 
specific numbers, but just an idea of the extent of it such as 
we understand it.
    One of the problems in estimating the number of foreign 
fighters from Indonesia is the fact that their family members 
go with them. So I have seen estimates of a total of perhaps as 
much as 1,000, but of those, many members would be family 
members. And perhaps a more realistic figure would be about 300 
to 600. But, again, please do not hold me accountable for the 
exact numbers on this. Of these, I think we also estimate 
approximately 100 or so have returned to Indonesia in one form 
or another.
    Senator Gardner. And what are the Indonesian Government's 
policies for domestic militants and the threat that they pose 
to the Government of Indonesia, the people of Indonesia when 
they return and how we can work with them on that issue?
    Mr. Donovan. First of all, I think it is important that we 
share the very common goals with them, and that is, one, 
preventing foreign terrorists or local terrorists for that 
matter from conducting attacks; second, from spreading hateful 
ideologies; and third, for recruiting vulnerable populations, 
including youth, and recruiting them.
    What we are cooperating with Indonesia on is in such areas 
as information sharing. We cooperate in areas including the 
prison management and the monitoring of prisoners after they 
have been released to make sure that that is handled properly, 
and also in speaking out in the community, engaging with 
members of civil society and civil society organizations, to 
make sure that we do not vacate that field to foreign 
terrorists or to extremists.
    Senator Gardner. And would you consider this area to be the 
greatest counterterrorism gap that Indonesia has? Is there 
another area of greater concern to the U.S.?
    Mr. Donovan. Well, certainly one thing that we are very 
cognizant and we support Indonesia on is their counterterrorism 
programs are civilian and law enforcement-led. And I think this 
is a very important priority for us as it is for Indonesia as 
well. And so we work again with the law enforcement agencies to 
make sure that they play the leading role. There have been a 
number of successes just in the past month or 2 in Indonesia. 
One was the death and the killing of Santoso, who was the 
leading terrorist in Indonesia. Just last week, his deputy was 
captured, and there was a press report today saying that 
another member of his group was killed within the last several 
days. So I think that is a very good sign.
    Senator Gardner. Thank you, Mr. Donovan.
    And shifting to trade, what are the biggest barriers right 
now that you see between the U.S. and Indonesia in matters of 
trade?
    Mr. Donovan. One of the issues that we have to deal with is 
excessive regulation, regulatory restrictions on our products 
coming in, which I might add also raises the price for 
Indonesian consumers. And I think that that is an area that we 
need to be working on and working with Indonesia through the 
Trade and Investment Forum Agreement mechanism that we have. 
Our most recent meeting was in April in Indonesia.
    Another would be in the area of investment. Indonesia has a 
negative investment list that makes it difficult sometimes for 
foreign investors and certainly for U.S. investors to really 
engage in ways that they would like to do. And I think in all 
those areas, we need to work a little bit harder.
    Senator Gardner. Thank you, Mr. Donovan.
    Thanks, Mr. Chairman.
    Senator Flake. Thank you.
    Ambassador Rubio?
    Senator Rubio. Not yet. [Laughter.]
    Senator Flake. Senator.
    Senator Rubio. Thank you for the promotion, but not yet. I 
appreciate it.
    Mr. Donovan, let me ask you. In 2006, Indonesia passed a 
law requiring minority religious groups to collect signatures 
from the local majority group before building houses of 
worship. So since the passage of that so-called religious 
harmony bill, more than 1,000 Indonesian churches have 
reportedly been shuttered and untold numbers of others have 
never been built.
    To what extent do you plan to make religious freedom a 
priority in your dealings with the Government of Indonesia?
    Mr. Donovan. Thank you, Senator.
    Obviously, every society and every government and every 
country is judged in part by the way that it treats its 
minorities. Within the Indonesian constitution, it contains 
guarantees of religious freedom. But there have been instances 
of abuses involving religious minorities. We certainly urge the 
Indonesian Government and work with civil society in Indonesia 
to look at those and do what they can to have--you know, 
Indonesia really regards itself and is very proud of its 
tradition as a diverse society. And we encourage Indonesia to 
live up to that. And we work--again, I mentioned the religious 
commission that was just formed--to try and move forward in 
that area. In terms of my efforts on that, I can assure you 
that one of the priorities I will have, if confirmed, is 
helping Indonesia to deal with issues involving religious 
minorities, to make sure that they not only are entitled but 
receive the same freedoms of other Indonesian citizens.
    Senator Rubio. We had a hearing here last week in the 
subcommittee about child marriages, which I think is a misnomer 
because a marriage is supposed to be a consensual relationship 
between two people. In the case of a 14- or a 13-year-old I do 
not think that is accurate. In fact, I know it is not.
    But this particular case about protecting women and girls 
abroad has become a priority of U.S. policy. In your view, what 
more can the Indonesian Government do to protect women and 
girls from the rampant abuse and to promote more quality for 
all women and young girls in the country?
    Mr. Donovan. Thank you, Senator.
    Certainly one area would be to shed a little bit more light 
on this and to make sure that the Indonesian people are aware 
of issues like this going on. I think certainly when you look 
at public opinion polling in Indonesia, there is a great desire 
to move forward to protect the rights of minorities. And I 
think practices like this--one of the things that we can do is 
work with civil society organizations to make sure that the 
Indonesian people are aware of what is going on.
    Senator Rubio. Mr. Symington, I want to ask now about 
Nigeria for a moment.
    The independent bipartisan U.S. Commission on International 
Religious Freedom has recommended that Nigeria be designated a 
country of particular concern. Here is the quote from their 
report. Quote: the Nigerian federal government fails to 
implement effective strategies to prevent or stop terrorism and 
sectarian violence, and it does not bring to justice those 
responsible for such violence, thus fostering a climate of 
impunity. End quote.
    In your view, why has the Department of State failed to 
make this designation, and do you believe that Nigeria has the 
capacity to improve religious freedom conditions, particularly 
while more fully and effectively countering Boko Haram and 
sectarian violence? I guess the first question is the most 
important. In your view, why has that designation not happened?
    Ambassador Symington. Senator, thank you for both this 
question and the previous question about the importance of 
religious liberty.
    I do not think that there is a single issue more important 
in Nigeria than that the country continue to be seen by all of 
its citizens as a country that protects the rights of each one 
of them regardless of what their religion is. This issue comes 
up every day.
    It is true that in the northeast, most of the victims of 
terrorist attacks are Muslims. But there are conflicts that 
continue to try to rip the country apart and try to rip it 
apart along religious lines.
    I think that the single most important thing that we can do 
is to stress every day that the notion, e pluribus unum, out of 
many, one, is not an idea that is just American but universal, 
and at the core is belief. And at the core is the individual 
person.
    We have spoken to and will continue to engage with not just 
the president but with state and local leaders, with religious 
leaders, with civil society throughout the country in Nigeria, 
and if confirmed, I look forward to contributing to that.
    Senator, I do not know the answer to the question regarding 
the designation, and I will find it out and submit it to you.
    Senator Rubio. Let me then in closing ask you in general do 
you believe the Nigerian Government and its security forces are 
taking sufficient steps to protect civilians, especially young 
girls, from human rights abuses such as kidnappings and forced 
conversions.
    Ambassador Symington. Senator, thank you again.
    I think that not just the Nigerian Government, the Nigerian 
people and their partners, including the United States, need to 
continue and increase the steps that we take. Boko Haram and 
others have been reduced, but awful things continue to happen 
on a daily basis. And in a country as vibrant and as important 
to its own people and to the world as Nigeria, we cannot stop 
where we are. We have to go forward together. There literally 
is nothing more important.
    There is a bond of trust that must be forged between the 
people of any place and the leaders of that place, and when 
that is threatened, it undermines all governance, all justice, 
and all opportunity. Forging with them that bond to make it 
stronger is essential for them but also for us, for as we think 
about the world ahead, I cannot imagine a more important 
relationship than the one that we have with the African 
continent. And I think our efforts there begin by thinking 
about individual people and starting with conscience, a 
fundamental freedom as well as a right.
    Thank you, Senator.
    Senator Rubio. Thank you.
    Senator Flake. Thank you, Senator Rubio.
    I want to thank the witnesses today.
    One other question for Mr. Donovan. In 2015 I think, the 
President of Indonesia announced the intention to join TPP at 
some point. Is that still the understanding?
    Mr. Donovan. It is my understanding, yes, Mr. Chairman. 
During President Jokowi's visit here in October of 2015, he did 
announce that Indonesia was interested in joining the TPP. I 
understand just overnight there have been some press statements 
that I cannot confirm that one of the things that the 
Indonesian Government will be doing is waiting to see how our 
handling of TPP will be undertaken.
    Senator Flake. Thank you all for your testimony today. I 
appreciate my colleagues for the questions. And once again, 
thank you to the families that are here. We understand and 
appreciate greatly the sacrifices that you all make to have 
family members serve in these posts.
    The hearing record will remain open until close of business 
Wednesday. We ask the witnesses to respond promptly to 
questions that may be submitted.
    And I also ask for unanimous consent that Senator 
Klobuchar's statement be added to the record. She has some nice 
things to say about Ambassador Symington.
    [Senator Klobuchar's statement follows:]


           Statement of Senator Amy Klobuchar in Support of 
                 Ambassador-designate Stuart Symington

    Mr. Chairman, My good friend Stuart Symington is before the 
committee today regarding his nomination to be Ambassador to Nigeria. 
Unfortunately, I am unable to attend the hearing due to my obligation 
to serve as the ranking member for an anti-trust hearing in the Senate 
Judiciary Committee. If I were able to attend today, I would provide my 
full support for Ambassador Symington's nomination.
    I have known Ambassador Symington and his family for many years. I 
have long known that the Ambassador has a passion for furthering 
America's interests in the world and improving the lives of those 
struggling most. Through his decades of work at the State Department, 
this passion has become clear to everyone that meets the Ambassador. 
Ambassador Symington has spent his life representing our country in 
some of the most dangerous places in the world. In 2004 and 2005, he 
served under Ambassador Negroponte in Iraq managing the election 
process in a country that had been ruled by military dictators for 
decades. Before that, he served in Niger and dealt with military 
uprisings and terrorist threats. This experience is vital as we face 
new and evolving security challenges abroad and is especially relevant 
in light of the recent violence in Benue, Nigeria.
    Ambassador Symington understands the complexities and long-lasting 
effects of civil war from his time as Ambassador to Rwanda. During his 
time there, the Ambassador helped build civil society and institutional 
capacity, vastly improving how people receive health care. He also 
strengthened economic integration and agricultural production. He did 
the same as Ambassador to Djibouti in the years prior to his time in 
Rwanda. Ambassador Symington's current position as Deputy Assistant 
Secretary for Central Africa and African Security Affairs brings more 
valuable experience to an already impressive history of service in 
Africa. These experiences uniquely qualify the Ambassador to represent 
the United States in Nigeria, the most populous country in Africa.
    As Nigeria struggles to address terrorist groups like Boko Haram, 
and lift its economy from a deep recession, we need a steady and 
experienced hand leading the U.S. Embassy in Abuja. There is no doubt 
that Ambassador Symington is the person for the job. I am honored to 
give my full support for his swift confirmation.


    Senator Flake. And with the thanks of the committee, this 
hearing is adjourned.
    [Whereupon, at 10:53 a.m., the hearing was adjourned.]

                              ----------                              



              Additional Material Submitted for the Record


 Reponses of Hon. W. Stuart Symington, nominated to be U.S. Ambassador 
 to the Federal Republic of Nigeria, to Questions from Members of the 
                               Committee

              ambassador-designate symington's responses 
                    to questions from senator cardin


    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In every post, I have worked in partnership with people 
inside and outside government to promote human rights and democracy. 
Together, we have acted to improve electoral processes, to reduce 
ethnic and religious tensions, to promote equal justice, and to stop 
violations of human rights. For example, as Deputy Assistant Secretary, 
I visited Burundi, met with opposition, religious, and human rights 
leaders, and pressed government leaders in public and in private to 
stop using incendiary language that risked inciting ethnic violence and 
to retract earlier statements.
    More recently, as U.S. Special Representative for the Central 
African Republic, I worked with civil society, an ecumenical group of 
religious leaders, youth, and leaders of all political parties to stop 
spoilers who threatened to derail the democratic transition, and ensure 
a successful, democratic election process. Earlier in my career, as 
Political Advisor at U.S. Northern Command, I worked successfully with 
our U.S. Mission in the Bahamas to advocate for increased government 
action to combat trafficking in persons, and with our Mission in Mexico 
to ensure military cooperation complied fully with the Leahy Law.
    If confirmed to be U.S. Ambassador to Nigeria, I can assure you 
that I will make human rights and democracy one of my top priorities 
and I will make certain that my team at Post does the same.


    Question.  What are the most pressing human rights issues in 
Nigeria? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Nigeria? What do 
you hope to accomplish through these actions?

    Answer. Stopping the horrific attacks of Boko Haram and providing 
support to those affected by that group is the most pressing human 
rights issue in Nigeria today. If confirmed, I will act to ensure that 
the United States continues to support Nigeria and its neighbors as 
they tackle the Boko Haram threat contributes to lasting security in 
the region. To do that, it is vital that the Nigerian government enlist 
the full support of its own people, by acting with precision and in 
accordance with its laws when using force, and ensuring that justice, 
good governance, and the delivery of essential services quickly follow 
when Boko Haram is displaced and defeated. It is also essential that 
the Government of Nigeria take responsibility when instances of 
security force abuse do occur, and that accountability and respect for 
human rights are key tenets of their security operations, including 
those against Boko Haram.
    We will continue to act as true partners, working together to 
ensure that our efforts truly benefit Nigeria's people and our own. We 
will act together with civil society and government alike to ensure 
that those who seek to do good--including advocates of human rights and 
good governance--are protected by the law, and those who violate the 
law are held accountable.
    Our objective is not just to degrade and ultimately defeat Boko 
Haram, but to help Nigeria change the conditions that gave rise to this 
group, and prevent the resurgence of other violent groups. There are no 
overnight solutions, and for Nigeria and its partners, this will 
require a sustained, long-term effort. Through our actions we aim to 
improve governance, strengthen the rule of law, and promote respect for 
human rights by supporting the development of strong governmental 
institutions focused on delivering fair and equitable treatment to all 
Nigerians.


    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Nigeria in 
advancing human rights, civil society and democracy in general?

    Answer. While the Government of Nigeria has made some progress to 
address human rights issues, several obstacles remain. Nigeria's large 
population and territory and its extraordinary diversity challenge the 
National and State governments as they respond to crises and seek to 
deliver services. A culture of impunity exists in Nigeria and there are 
inefficiencies in the judicial and criminal justices systems. President 
Buhari is right to underscore the fundamental importance for all 
Nigerians of stopping corruption. Additionally, there is a need for 
professionalism in the security services including both the police and 
military. There is a tendency of some powerful politicians at the local 
and national level to support electoral fraud and voter intimidation, 
and to foment ethnic and sectarian divisions.
    We continue to emphasize to the Nigerian government that human 
rights violations and violations of international humanitarian law by 
security forces undermine security goals; improvements in 
accountability for violations will enhance security force legitimacy; 
and, impunity for violations by security forces not only tarnishes 
Nigeria's reputation, but eliminates our ability to engage with those 
units accused of violations.
    Following the violent clashes between members of the Nigerian Army 
and the Shiite group Islamic Movement of Nigeria in Zaria, Kaduna 
State, last December, the United States immediately called for a 
transparent and credible investigation into the killings of civilians. 
Transparent and comprehensive inquiries into incidents like this are 
crucial, along with no immunity for those found to be responsible, 
regardless of rank or position. The report issued by the independent 
commission appointed by the Kaduna state government notes just that.
    I note too that President Buhari has made public statements 
demanding better behavior by the security forces and respect for human 
rights. We continue to press his government to follow through on this 
rhetoric by taking action regarding alleged security force abuses from 
before and after the start of his administration.


    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
human rights NGOs in the context of your responsibilities in Nigeria? 
If confirmed, what steps will you take to pro-actively support the 
Leahy Law and similar efforts, and ensure any U.S. security assistance 
and security cooperation we may provide in support of Nigeria 
institutions or efforts reinforces human rights?

    Answer. If confirmed, I am fully committed to meeting with human 
rights, civil society and other non-governmental organizations in the 
United States, and with human rights NGOs and advocates in Nigeria. I 
will work in partnership with the entire U.S. Mission staff to 
underscore to all our Nigerian interlocutors the fundamental importance 
of the Leahy Law and the principles behind it. The Leahy vetting 
program at the Embassy in Nigeria has been characterized as impressive 
and suggested as a model for the entire Department. As we work together 
to build security and strong democratic institutions, we will continue 
to also protect human rights and thus strengthen the bonds between 
citizens and their government.


    Question.  If confirmed, will you and your embassy team actively 
engage with Nigerian leadership to address cases of key political 
prisoners or persons otherwise unjustly targeted across in Nigeria?

    Answer. If confirmed, my Embassy team and I will continue to 
actively engage with the Government of Nigeria at all levels to redress 
cases of any political prisoners or persons unjustly targeted by the 
government. I will continue to press the Nigerian government to promote 
respect for human rights, civilian protection, appropriate detention 
procedures, and accountability for abuses effectively. A key component 
of our security assistance to Nigeria has been the importance of 
respect for human rights and professional military conduct that focuses 
on protecting the civilian population, humane treatment of prisoners, 
and adherence to the rule of law.


    Question.  Will you engage with Nigerian leadership on matters of 
human rights, civil rights and governance as part of your multilateral 
mission?

    Answer. If confirmed, I will engage with Nigerian leadership on 
matters of human rights, civil rights, and governance. I will stress to 
the Government of Nigeria the importance of upholding freedoms of 
expression and assembly and inclusion of all citizens in the political 
process, while simultaneously continuing to demonstrate our support for 
civil society. If confirmed, we will continue to take allegations of 
human rights violations and violations of international humanitarian 
law very seriously.


    Question.  The 2016 U.N. humanitarian response plan for Nigeria is 
currently funded at 22 percent, and sources on the ground have 
indicated that corruption and profiteering-including the looting of 
food aid by security forces-are hampering aid delivery.


  <diamond> What more should the United States do to help improve 
        humanitarian conditions in the north? If confirmed, how will 
        you work with the Nigerian government and international 
        partners to draw attention and channel resources towards the 
        emergency?
  <diamond> How can we help stop the diversion of food aid?
  <diamond> How do we combat sexual exploitation and abuse by security 
        forces of those living in the camps?


    Answer. Changing the grave trajectory in the Northeast will require 
the urgent and robust collective efforts of the Government of Nigeria 
and the international community. Over the past few months, the U.N. has 
scaled up its response and coordination mechanism to the highest 
levels, recognizing the truly dire conditions of many living in the 
Northeast. Concurrently, the Government of Nigeria has decided to 
establish an Inter-Ministerial Task Force to coordinate among national 
authorities and the international community--a sign of Nigeria's 
recognition of the complexity and scale of the humanitarian crisis in 
the Northeast. The Government of Nigeria, the UN, and the broader 
humanitarian community must dispatch a fully coordinated and 
cooperative response to maximize the effectiveness of the relief effort 
at this crucial time. We will continue to urge the Nigerian government 
to act with a greater sense of urgency with respect to taking a 
stronger lead role in providing and coordinating humanitarian 
assistance to ensure that needed assistance reaches its intended 
beneficiaries. Similarly, we are pressing our United Nations colleagues 
to deploy appropriate and sufficient staff to effectively support the 
Nigerians' efforts.
    The humanitarian crisis in Nigeria and the broader Lake Chad Basin 
is a critical priority for the United States, and we have worked to 
draw much-needed attention and funding for the response, including 
through high-level visits by U.S. government officials such as 
Secretary Kerry, Ambassador Power, senior USAID officials, and others. 
We have provided robust humanitarian assistance to Nigeria and the 
broader region to support Boko Haram's victims. We are the largest 
international donor, and we are constantly exploring how we can use our 
assistance to reach more people.
    In FY 2015 and FY 2016, the United States provided more than $318 
million in aid in the Lake Chad Basin region, of which more than $165 
million was for Nigeria alone, and we are working to do more. We are 
working in close coordination with other donors, in particular the 
European Union (EU) and the United Kingdom (UK), and look forward to 
continuing to support the efforts of the U.N. and the Government of 
Nigeria to marshal resources for this response, reaching beyond the 
normal base to include the private sector and international financial 
institutions. If confirmed, I will continue to advocate that the United 
States provide a robust response to this acute humanitarian crisis.
    At the highest levels, we continue to urge the Government of 
Nigeria and the U.N. system to streamline the delivery of humanitarian 
support to the Northeast. Furthermore, we are working with the 
Government of Nigeria to ensure that life-saving resources are used for 
their intended purposes. Nigeria is taking allegations of stolen food 
aid seriously; Nigeria's Senate and the Economic and Financial Crimes 
Commission have announced investigations into allegations of food aid 
theft. We are supporting the Nigerian government's efforts to curb this 
behavior by building government capacity to ensure effective monitoring 
mechanisms are put in place. We will continue to press for improved 
coordination with the United Nations to strengthen the collaborative 
international response to the crisis.
    USAID is working closely with its partners on the ground to 
safeguard assistance, requiring all implementing partners to have 
acceptable risk management plans in place, and to monitor aid 
distribution closely. In Nigeria, a variety of tools are being employed 
to respond to the food security crisis including electronic food 
vouchers that help reduce risk by improving tracking and reporting of 
aid. Further, USAID has multiple feedback mechanisms in place for 
reporting possible diversion or theft and will begin using a third 
party monitor in FY 2017. We will continue to press for improved 
coordination with the United Nations to strengthen the collaborative 
international response to the crisis.
    We have also been disturbed by reports that Nigerian officials and 
security personnel have taken advantage of displaced persons in camps 
and settlements in northeastern Nigeria, including cases of sexual 
abuse. I am keenly aware and we are actively engaged in addressing the 
appalling allegations of sexual misconduct toward internally displaced 
persons who are already victims of terror. We have shared these reports 
with Nigerian officials and urged them to take immediate steps to stop 
such behavior. Allegations of sexual misconduct against military and 
official personnel must be investigated in a timely manner. Such 
allegations, whether true or not, risk further undermining trust in 
legitimate institutions of governance-strengthening the hand of Boko 
Haram. Our Embassy continues to urge that all such allegations be 
swiftly and frankly addressed. If confirmed, I will join in pressing 
the Nigerian federal and state governments to fully implement a zero 
tolerance policy on sexual exploitation and abuse, to quickly 
investigate allegations, and to publicly hold accountable those found 
guilty of committing abuses against civilians.
    At the same time, it is important to assist those who have suffered 
sexual violence. USAID is already providing health care, psycho-social 
support, and gender-based violence programs directly to internally 
displaced persons, including recently arrived women and children. We 
will continue to work with the Nigerian government, communities, and 
international organizations to support victims of gender-based 
violence. Boko Haram itself employs systematic rape and brutality 
against women and girls. These victims have suffered profoundly. They 
need help so that they and the region can move forward together.


    Question.  The Nigerian government is taking steps to restore 
security in areas of the Northeast "liberated" from Boko Haram, but 
abuses by police and other security forces now and in the past are a 
major obstacle to building trust in these communities.


  <diamond> What steps are being taken by the government to investigate 
        past abuses, and mitigate the risk of further abuses. What are 
        we doing to help the government in these efforts?
  <diamond> If confirmed, will you commit to making accountability for 
        security force abuses a top priority?


    Answer. President Buhari has made public statements demanding 
better behavior by the security forces and respect for human rights. 
Transparent and comprehensive inquiries into incidents like this are 
crucial, with no impunity for those found to be responsible. We have 
been very clear with the Government of Nigeria that we take allegations 
of human rights violations and violations of international humanitarian 
law by security forces very seriously. Our military assistance to 
Nigeria, as with all countries, is subject to Leahy vetting. We are 
required by law not to provide training or assistance to units or 
individuals for whom we have credible information of gross violations 
of human rights.
    When the Nigerian Army clashed last December with an Islamic sect 
in Zaria, we immediately called for a transparent and credible 
investigation. The Kaduna State Judicial Commission of Inquiry released 
a report on its investigation into the Zaria incident. We have stressed 
at high levels the need to bring to justice those who perpetrated the 
violence.
    I was pleased when then-President Goodluck Jonathan allowed 
international human rights observers access to Giwa Barracks, which was 
reported by Amnesty International to have been the site of hundreds of 
deaths. If confirmed, I will press the current administration for 
continued access and for all military detention facilities to offer 
humane detention conditions, including for suspected Boko Haram ex-
combatants.
    State and USAID democracy, human rights, and governance (DRG) 
programs are critical tools to strengthen civil society's capacity to 
monitor security force conduct and enhance community and state actors' 
ability to address threats from Boko Haram. DRG assistance is 
increasingly deployed to address violent extremism and its drivers and 
support core security goals around the world, and Nigeria is a strong 
example of such efforts.
    I am committed to encouraging and helping to expand Nigeria's 
efforts to address human rights violations. If confirmed, I will make 
accountability for security force abuses a top priority. I will stress 
that transparency is the key when instances of human rights abuse 
occur. My goal will be to encourage the Nigerian government to be 
transparent about how Nigeria addresses human rights violations, to 
publicly share the results of human rights investigations, and to hold 
those who violate the law to account.


    Question.  The Nigerian government appears to have adopted a 
heavily militarized approach to counter two simultaneous threats, one 
in the Northeast, and one in the Delta. This approach does not address 
the root causes of radicalization and violent extremism, which in the 
Nigeria context, seem to be similar whether aggrieved populations are 
in the Northeast or the Niger Delta. Nigerian authorities are working 
with regional and international partners to address security 
challenges, but, as far as I know, there is no comprehensive government 
strategy to address the root causes of violence.


  <diamond> How is the Nigerian government working to address the root 
        causes of violent extremism, such as inequitable resource 
        allocation and local level corruption? What, in your view, 
        still needs to be done?
  <diamond> How can the United States assist the Nigerian government in 
        ensuring its planning to address root causes is as robust as 
        its security approach?


    Answer. There is no purely military solution to the security issues 
that Nigeria faces. It is critical that the Government of Nigeria 
address the drivers of extremism, including through the development of 
educational and economic opportunities. As Secretary Kerry said, "To 
effectively counter violent extremism, we have to ensure that military 
action is coupled with a reinforced commitment to the values this 
region and all of Nigeria has a long legacy of supporting--values like 
integrity, good governance, education, compassion, security, and 
respect for human rights." If confirmed, I will work with the 
Government of Nigeria to encourage policies and practices that will 
help to strengthen the Nigerian people's trust in their government and 
in their own security institutions.
    The Nigerian federal government must do more in partnership with 
Nigerian state governments to address the local conditions that create 
grievances and give rise to insecurity. This is particularly true in 
the Delta, where our embassy and consulate are working with both the 
federal and state governments to fully engage in this challenge. 
However, just as in the United States, the federal government cannot be 
responsible for addressing all community grievances; state government 
leadership must play a more responsible role in supporting development 
in both regions using the considerable resources available to them, 
especially in the Niger Delta. We are also working with a range of 
local non-governmental actors, including the business community, 
religious leaders, and civil society organizations to develop their 
capacity to manage and mitigate disputes before they give rise to 
insecurity.
    he Government of Nigeria and leaders in the major faith communities 
have improved inter-religious relationships in the North. The federal 
government is also working with state governors in northern and Middle 
Belt areas of Nigeria to establish specific grazing territory to 
address herder/farmer conflicts, and it is working with local 
communities to improve conflict mitigation.
    President Buhari has taken key steps in the past year to counter 
corruption. These efforts include: (1) high-profile investigative and 
prosecution efforts by the Economic and Financial Crimes Commission; 
(2) the use of a single auditable treasury account for receipt of all 
public funds to prevent graft; (3) reforms in the state oil company; 
(4) investigations into corruption in military procurement; (5) a 
public campaign against corruption, including anonymous public tip 
lines; and, (6) formally joining the Open Government Partnership. We 
will work with the Government of Nigeria to strengthen its anti-
corruption efforts at all levels.
    The United States continues to provide security assistance to 
support the professionalization of the Nigerian security forces in 
order to increase the military's ability to counter extremism and its 
ability to monitor and patrol Nigeria's waters. Yet, we are keenly 
aware that our principal objective is not just to defeat Boko Harm, but 
to help Nigeria change the conditions that gave rise to such groups in 
the first place. This requires a sustained long-term effort to address 
the underlying drivers of insecurity.
    There is a critical link between improving the democracy and human 
rights climate and countering violent extremism in Nigeria. USAID 
supports a number of programs that promote inter-religious and ethnic 
tolerance, as well as conflict mitigation and reconciliation, including 
efforts through the Office of Transition Initiatives to promote the 
legitimacy and capacity of governance structures in the conflict-
affected Northeast. If confirmed, I will focus intensely on our work 
with civil society to better understand the root causes of these 
drivers, and I will use all our available tools at the Mission to help 
the Nigerian people counter violence and bend the arc of extremism 
towards reconciliation and peace throughout Nigeria.


    Question.  Our relationship with Nigeria is one of the most 
important on the continent. I understand the administration's Nigeria 
strategy is being updated.


  <diamond> When will it be approved and when do you plan to share that 
        with Congress?


    Answer. The administration has a long-standing strategy that is 
classified, and that has been updated from time to time. We would be 
happy to brief you in the appropriate setting on the strategy. The 
overarching policies that guide our engagement with Nigeria have been 
described publicly in multiple documents. Our top policy priorities 
align closely with President Buhari's objectives:
  <diamond> Defeating Boko Haram/Islamic State West Africa and 
        restoring security and governance to northeastern Nigeria, as 
        well as relieving the humanitarian crisis there. The Government 
        of Nigeria has made progress in its campaign against Boko 
        Haram, but that fight is ongoing and requires a committed and 
        sustained response.
  <diamond> Reviving oil production, preventing attacks on pipelines, 
        and promoting dialogue and development in the Niger Delta. 
        Preventing militant attacks on pipelines is critical, and this 
        requires a broad dialogue in the Niger Delta and efforts to 
        encourage economic development.
  <diamond> Furthering economic policy reform by encouraging the 
        adoption of market-friendly practices, encouraging 
        international trade as well as local production of goods, and 
        ensuring sound monetary policy. We will continue to promote 
        U.S. business investment in and trade with Nigeria.
  <diamond> Improving governance, strengthening the rule of law, and 
        respect for human rights by supporting the development of 
        strong governmental institutions with built-in accountability 
        mechanisms, focused on delivering fair and equitable treatment 
        to all Nigerians.
  <diamond> Reducing corruption by encouraging transparent governance 
        of public institutions.

                               __________

              Ambassador-Designate Symington's Responses 
                    to Questions from Senator Rubio

    Question. Nigerian President Buhari has initiated a crackdown on 
government corruption, are we satisfied with the anti-corruption 
campaign? Are there areas Nigeria should focus on to root out 
corruption?

    Answer. The United States remains a committed partner with Nigeria 
in the fight against corruption. I am encouraged that Nigeria is 
carrying out significant investigations and is willing to prosecute 
senior officials credibly accused of corruption. Prosecuting officials 
regardless of political affiliation will be key to the ultimate success 
of the anti-corruption effort. I believe the establishment of a 
Treasury Single Account is an important step in the right direction to 
better public financial management. While we are encouraged by this 
progress, there is still work to be done.
    It is crucial that Nigeria continue to improve the transparency of 
its finances and those of its state-owned enterprises, such as the 
Nigerian National Petroleum Corporation, in order to reduce 
opportunities for corruption. If confirmed, I will continue to stress 
the importance of doing more, for example, by encouraging the 
government to make public audit reports of its annual financial 
statements, exercise adequate oversight over off-budget, and 
demonstrate willingness to partner with civil society on specific 
transparency and accountability efforts, including the development of 
an Open Government Partnership National Action Plan.

    Question. Is Nigeria doing enough to combat Boko Haram? Is there 
more the U.S. could do to assist Nigeria and neighboring countries?

    Answer. The Government of Nigeria has made progress in its campaign 
against Boko Haram, but that fight is ongoing and requires a committed 
and sustained Nigerian response with support from the United States and 
other partners. Nigeria and its regional partners must lead the fight 
against Boko Haram, and I am absolutely committed to supporting our 
partners in that effort.
    Through our whole-of-government strategy, the United States is 
focused on assisting the efforts Nigeria and the other Lake Chad Basin 
countries to weaken Boko Haram's capacity, financing, and cohesion 
through both military and law enforcement; counter and prevent the 
drivers of violent extremism; promote more inclusive and capable local 
governance to address the underlying drivers of insecurity; improve 
respect for human rights and accountability for security force 
behavior; and, respond to the humanitarian needs of civilians affected 
by Boko Haram.
    One component of our strategy is providing support to the 
Multinational Joint Task Force, which includes elements from Cameroon, 
Chad, Niger, Nigeria, and Benin. This is part of a regional approach to 
a problem that transcends borders. Another component is bilateral 
security assistance to Nigeria and its neighbors. Through multiple 
channels, we are providing advisors, training, logistical support, and 
equipment. This assistance is vetted in accordance with our obligations 
under the Leahy Law. The fight against Boko Haram goes well beyond the 
battlefield. It is a fight that requires long-term solutions. Nigeria 
and the other Lake Chad Basin countries must address the drivers of 
extremism that gave rise to Boko Haram, including ineffective and 
exclusionary governance, corruption, lack of education, lack of 
accountability for heavy-handed security force responses, and a lack of 
economic opportunities for the growing young population.

    Question. In March, two Nigerian girls were kidnapped and subject 
to forced conversion and marriage in Northern Nigeria. Only after 
public outcry and unprecedented public pressure were they ultimately 
returned. Of course we have seen similar tactics employed by Boko 
Haram. Is this issue prioritized in our dealings with the Nigerian 
government?

    Answer. Yes it is. We are committed to working together with 
Nigerians to keep young women from being forced into marriage. We 
prioritize efforts to empower adolescent girls so that they are given 
opportunities to thrive in school. In northern Nigeria, we have 
programs that provide psycho-social support for women and young girls 
affected by the violence perpetrated by Boko Haram. USAID's Office of 
U.S. Foreign Disaster Assistance life-saving protection services--
including health care, livelihoods assistance, and psychosocial 
support--for displaced women and girls, particularly survivors of 
gender-based violence, in northeastern Nigeria.
    I have heard disturbing reports of women and girls, who have 
survived horrific ordeals while being held by Boko Haram, returning to 
their communities, only to be ostracized. For them, the struggle is not 
over. If confirmed, I will strongly encourage increased assistance from 
the Government of Nigeria to support these women and girls and 
reintegrate them back into their communities.
    If confirmed, I will also continue our efforts to assist the 
Government of Nigeria in its efforts to return the Chibok girls safely 
to their families. We will continue to raise this issue in our 
interactions with the Nigerian government.

    Question. Do you believe the Nigerian government and its security 
forces are taking sufficient steps to protect civilians, especially 
young girls, from human rights abuses, such as kidnappings and forced 
conversions?

    Answer. The Government of Nigeria has made clear that it is 
committed to protecting its citizens, especially young girls, from 
abuses including kidnappings and forced conversions. But it is clear 
that the government needs to take additional steps to stop terrorist 
attacks and end such abuses. We are committed to working with them to 
achieve that goal.

    Question. The independent, bipartisan, U.S. Commission on 
International Religious Freedom (USCIRF) has recommended that Nigeria 
be designated a Country of Particular Concern. ``The Nigerian federal 
government fails to implement effective strategies to prevent or stop 
terrorism and sectarian violence and it does not bring to justice those 
responsible for such violence, thus fostering a climate of impunity.'' 
In your view, why has the Department of State failed to make this 
designation? Do you believe that Nigeria has the capacity to improve 
religious freedom conditions by more fully and effectively countering 
Boko Haram and sectarian violence?

    Answer. In making a designation of a Country of Particular Concern, 
the Department of State assess the full range of information available, 
including from civil society, religious organizations, and domestic and 
international human rights groups. A key component of the Department's 
consideration is based on recommendations from the U.S. Commission on 
International Religious Freedom.
    The International Religious Freedom (IRF) Act states that the 
Secretary of State may designate a country a Country of Particular 
Concern (CPC) when the government is responsible for, or indifferent 
to, sustained, systematic, egregious violations of religious freedom 
rights. While both Muslims and Christians report discrimination or 
abuse based on religious affiliation in some parts of the country, the 
Government of Nigeria has worked to end, not foment such violence, and 
has actively worked to stem violence and to protect its citizens. 
Therefore, the Department of State has concluded that the government of 
Nigeria does not meet IRF Act criteria for CPC designation at this 
time.
    Understanding that there is still work to be done, the United 
States will continue to urge the Government of Nigeria to do all that 
can be done to stop communal violence and prosecute those involved in 
attacks. If confirmed, I will build on the Embassy's work to promote 
religious freedom and tolerance in my discussions with government and 
with civil society and religious leaders. I will conduct regular 
outreach on the importance of religious freedom and engage journalists, 
academics, entrepreneurs, civic organizations, teachers, students, 
government officials, the armed forces, clergy, and traditional rulers 
in this effort.

    Question. If confirmed, would you commit to ensuring that U.S.-
funded education efforts in northern Nigeria to increase access to 
schools and reform traditional Islamic schools include lessons on the 
promotion of freedom of religion or belief and fundamental human 
rights?

    Answer. The education of girls and boys is essential for the 
realization of a stronger democracy, informed civic participation, 
improved health, and economic growth in Nigeria. When we invest in 
education, we are investing in peace and prosperity, and expanding a 
population's ownership of its democratic system. Such investment 
enables Nigerians to tackle the great challenges facing health, human 
rights, and human security in their country. If confirmed, I will 
prioritize the protection and promotion of the fundamental human rights 
of all people in our programmatic efforts and engagements.

                               __________

 Reponses of Andrew Young, nominated to be U.S. Ambassador to Burkina 
            Faso, to Questions from Members of the Committee

                ambassador-designate young's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have always made the promotion of human rights and 
democracy a lynchpin of my political advocacy work. As the democracy 
and human rights officer in Burma, I developed and implemented 
strategies to support Nobel Laureate Aung Sang Suu Kyi and other 
National League for Democracy (NLD) supporters in their quest to bring 
non-violent democratic transition to the junta-led dictatorship. I 
traveled the country, documenting abuses and developing a close 
relationship with the democratic movement in the country, much to the 
antipathy of Burma's ruling generals. When Aung Sang Suu Kyi was 
released from house arrest and received the Congressional Gold Medal, 
she invited me to sit in the front row with 16 other champions of human 
rights, including Madeleine Albright and former Secretary of Defense 
William Cohen.
    Working as Foreign Policy Fellow for Senator Joe Lieberman, I 
worked with a bipartisan team to debate, negotiate and then draft S. 
516, the Advance Democracy Act of 2005, a bill which was condemned at 
the time by North Korean dictator Kim Jong Il and simultaneously 
praised by Russian democracy advocate, Natan Sharansky. The bill 
strengthened the U.S. government's ability to promote democracy abroad 
and today authorizes ``practical steps to advance liberty, freedom and 
democracy around the globe.''
    In my most recent assignment, I served as the Deputy Chief of 
Mission in Mali, after dangerous civil strife had stripped the embassy 
of much of its leadership. Following the brutal coup d'etat and under 
the threat of al-Qaeda linked extremists in the north, I worked to 
implement the Ambassador's vision for democracy, securing $10 million 
in election support funds, mobilizing 20 election monitor teams, and 
helping support this crucial step to re-establishing democratic 
government with the consent of the governed. If confirmed, I would 
prioritize supporting Burkina Faso's fragile new democracy using a 
similar set of tools.

    Question. What are the most pressing human rights issues in Burkina 
Faso? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Burkina Faso? What 
do you hope to accomplish through these actions?

    Answer. Burkina Faso faces a number of human rights issues that 
continue to affect the country's population. The most significant human 
rights problems in the country include harsh and life-threatening 
prison conditions, as well as violence and discrimination against women 
and children, including female genital mutilation/cutting (FGM/C). 
Additionally, the government has made efforts in recent years to combat 
human trafficking, yet does not currently meet the standards of the 
Trafficking Victims Protection Act (TVPA). In particular, child labor 
and the abduction of children into Koranic schools around the country 
remains a pressing concern. The fight for increased women's rights 
continues, and despite being illegal, FGM/C remains prevalent in some 
rural areas.
    If confirmed, I will work with the Burkinabe government to address 
these top human rights concerns and encourage them to hold accountable 
any members of the security forces found responsible for committing 
abuses. I will also urge the Burkinabe government to rigorously enforce 
its legislation against human trafficking and to prosecute, convict, 
and punish traffickers, including increasing penalties imposed on 
convicted trafficking offenders to reflect the longer terms permitted 
under the May 2008 anti-trafficking law.
    If confirmed, I will work with the Government of Burkina Faso to 
mobilize more effective national and international resources to fight 
the scourge of human trafficking, promote education for girls and 
women's rights, and combat female genital mutilation throughout the 
country.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Burkina Faso in 
advancing human rights, civil society and democracy in general?

    Answer. As one of the poorest countries in the world (183 out of 
186 countries in the 2015 U.N. Human Development Index), newly 
democratized Burkina Faso can only mobilize limited national resources 
to address these challenges. President Kabore's government has 
expressed a commitment to advancing justice and accountability efforts, 
but after two years of political turbulence, sustained efforts in these 
areas will take time to implement. The main challenges include limited 
resources for the Burkina Faso government and law enforcement to 
address human rights issues, lack of trust in the justice system, 
social and cultural practices that are often at odds with the rule of 
law, and the lack of consistency in enforcing the rule of law.
    If confirmed, I would work with government and civil society actors 
to advance efforts on the key human rights and democracy challenges 
facing the country. I would specifically seek to bolster Burkina Faso's 
vibrant, strong civil society, which played a crucial role in 
democratic transition to improve democratic governance, address 
outstanding human rights issues, and strengthen rule of law and 
accountability.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
human rights NGOs in the context of your responsibilities in Burkina 
Faso? If confirmed, what steps will you take to pro-actively support 
the Leahy Law and similar efforts, and ensure any U.S. security 
assistance and security cooperation we may provide in support of 
Burkinabe institutions or efforts reinforces human rights?

    Answer. If confirmed, I will work to support and proactively meet 
with the members of human rights, civil society, and other non-
governmental organizations that act as the backbone to Burkina Faso's 
vibrant civil society. As history shows, these groups play a large role 
in maintaining favorable human rights conditions in Burkina Faso and in 
holding their government to account on a range of issues.
    If confirmed, I will continue the consistent use of the Leahy 
vetting process to ensure that the recipients of U.S. security 
assistance meet our stringent human rights guidelines.

    Question. If confirmed, will you and your embassy team actively 
engage with Burkina Faso's leadership to address cases of key political 
prisoners or persons otherwise unjustly targeted across in Burkina 
Faso?

    Answer. If confirmed, I will actively engage, not just with the 
government of Burkina Faso, but also with its civil society and human 
rights organizations to address cases of political prisoners or those 
unjustly targeted by the state.
    I will continue to ensure open channels of communications between 
myself and those actors within the government who are responsible for 
ensuring respect for human rights, rule of law, and credible judicial 
processes in Burkina Faso.

    Question. Will you engage with Burkina Faso's leadership on matters 
of human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. If confirmed, I will continue the sustained engagement U.S. 
Embassy Ouagadougou has with the Government of Burkina Faso on the 
issues of human rights, civil rights, and governance.

    Question. How are we helping the Burkinabe consolidate its recent 
democratic transition? What level of funding are we providing, and what 
activities are and will we support?

    Answer. We are helping Burkina Faso consolidate its democratic 
transition by strengthening key institutions like Burkina Faso's civil 
society and independent media as well as by reinforcing the country's 
resilience and ability to provide it citizens with security. Our 
strategy will build on the U.S. government's longstanding support for 
civil society, which has a long and vibrant history in Burkina Faso. 
Much of this support for civil society comes from two USAID projects, 
one entitled Peace through Development II (PDEV II) and the other 
called Providing Youth with Opportunities for Peaceful Political 
Engagement, which is implemented by the National Democratic Institute 
(NDI). PDEV II began in November 2011 and will continue through the end 
of this fiscal year. It was intended to help reduce the risk of 
instability and increase resilience to violent extremism in the Sahel. 
Although PDEV II is scheduled to conclude in December, USAID will 
continue similar Countering Violent Extremism programming in Burkina 
Faso. Providing Youth with Opportunities for Peaceful Political 
Engagement, a program designed to enhance the capacity of youth to 
advocate and engage directly with political party leadership, ran from 
September 2012 to 2013.
    Addtionally, Embassy Ouagadougou has consistently worked with civil 
society groups throughout Burkina Faso. For example, the Embassy, 
through a Bureau of International Narcotics and Law Enforcement Affairs 
(INL)-sponsored United States Institute of Peace (USIP) program, has 
been working with two well-known local civil society organizations on a 
community driven policing program. The program helps civil society and 
police work together to improve security and build trust. In addition, 
the Public Affairs Section takes advantage of various exchange programs 
to send members of civil society to the United States to expand their 
knowledge and networks.
    U.S. support for elections continued throughout the transition 
period between the end of the Compaore regime in October 2014 and the 
election of President Kabore in November 2015. In addition to the 
ongoing PDEV II program, in February 2015, USAID launched its 
Partnership for Participation and Poise in Epic Polls program, 
implemented by the NDI and the International Federation for Electoral 
Systems (IFES), designed to support the Presidential and Parliamentary 
elections (November 2015) and the local elections (May 2016). The 
election fostered greater participation of youth and women in the 
election process and supported the National Independent Election 
Commission (CENI) to put in place a modern electoral results 
transmission system whereby preliminary voting results were available 
within 25 hours of the closing of the polls. The United States also 
served as the donor lead, coordinating more than $18 million. 
Recognizing the importance of a strong and independent media, the 
Public Affairs Section also trained approximately 60 journalists on the 
media's role in civic engagement and responsibility. In addition to 
civil society and elections support, and among other efforts to improve 
governance, Embassy Ouagadougou is helping Burkina Faso establish 
effective, legitimate and responsive law enforcement institutions in 
hopes of solidifying the country's democratic foundations, reducing the 
chance of future governance breakdowns, and fighting long-term drivers 
of violent extremism. Our efforts have been funded by the Trans-Sahara 
Counterterrorism Partnership (TSCTP), including the aforementioned 
community-driven police reform project that helps law enforcement and 
communities collaborate to improve security and trust and approximately 
$374,000 for community outreach programs targeting youth. In addition, 
by September 30, 2016, the United States will publicly commit $3.75 
million in countering violent extremism funds to build on these efforts 
through programs to improve dialogue between communities and law 
enforcement, enhance road safety, and improve the effectiveness and 
accountability of public order management.
    Finally, to support Burkina Faso's ability to provide security, 
since FY 2014, USAID and State have programmed over $39 million in 
bilateral assistance to support security and development in Burkina 
Faso, specifically to combat terrorism, support health and agriculture 
programs, including water and sanitation, and address humanitarian 
needs. Most recently, USAID inaugurated a program to build the capacity 
of the new National Assembly to position it as a truly independent 
second branch of government.
    The joint Bureau of International Narcotics and Law Enforcement 
Affairs (INL)-sponsored United States Institute of Peace (USIP) program 
has focused on training and coaching local organizations to facilitate 
and manage workshops that help local governments and communities 
identify the most pressing security needs and develop and implement 
collaborative, regional approaches to address them. These types of 
partnerships are more time- and staff-intensive, but the results are 
better tailored to local needs and create more durable capabilities 
that make it worth our investment.

    Question. The 2016 Trafficking in Persons (TIP) report lists 
Burkina Faso as a Tier 2 country, citing "significant efforts" being 
undertaken by the government. The report offers a number of 
recommendations for Burkinabe authorities, including vigorous 
investigation and prosecution of traffickers, increased resources for 
victims, and improved coordination among national and regional anti-
trafficking committees.
    If confirmed, how will you work with Burkinabe authorities to 
encourage progress in these areas? If confirmed, I would like to follow 
up with you on this after you arrive at post.

    Answer. If confirmed, I would continue working with the government 
on this issue, focusing on concerns including victim protection 
measures and long-term services for adults which remained inadequate 
during the 2016 reporting period. I would encourage the national anti-
trafficking committee to hold regular meetings, as they did not meet 
for the second consecutive year. I would also encourage the government 
to implement the recommendations outlined in the TIP Report, including 
vigorous efforts to investigate, prosecute, and convict trafficking 
offenders-including traffickers posing as Koranic school teachers-and 
apply penalties prescribed by the 2008 anti-trafficking law. Similarly, 
I would advocate for the allocation of increased resources for victims, 
including social reintegration, to prevent re-trafficking of identified 
victims. If confirmed, I will look forward to sharing the results of 
these efforts with you once I arrive at Post.

                               __________
                ambassador-designate young's responses 
                    to questions from senator rubio

    Question. Is Burkina Faso doing enough to combat terrorist groups 
that may target Western businesses?

    Answer. Although not a persistent target for Al-Qaeda in the 
Islamic Maghreb (AQIM) or al-Mourabitoun, Burkina Faso's location and 
relatively porous borders make it an easy target for terrorist groups 
looking for opportunities to exploit. AQIM and al-Mourabitoun 
perpetrated an attack on a Ouagadougou hotel on January 15, 2016, 
killing 30 people, including one American. Burkina Faso understands it 
must improve its counterterrorism capabilities in order to protect its 
people and attract and keep foreign investment.
    AQIM's new strategy to attack so-called ``soft targets,'' including 
hotels and restaurants, outside of its traditional area of operations 
in northern Mali, is a difficult one for governments to address. 
Although training and equipment can make incremental improvements, the 
long-term development of well-managed and accountable security 
institutions that inspire public confidence is the key to sustainable 
progress against these threats.
    As a member of the Trans-Sahara Counterterrorism Partnership 
(TSCTP), Burkina Faso has worked closely with the United States on 
border security, regional counterterrorism capacity development, and on 
preventing the spread of violent extremism through improved trust 
between citizens and government. These efforts help to address 
terrorism through improved law enforcement response but also, 
importantly, by reducing the vulnerability of communities to the appeal 
of terrorist groups. Burkina Faso is a charter member of the G-5 Sahel 
and has, correspondingly, increased its focus on enhanced regional 
coordination.
    The democratically elected government in Burkina Faso faces high 
expectations for providing more effective security for its citizens 
from both terrorism and broader criminality. Burkina Faso has a 
strategic counterterrorism plan, which involves deploying its anti-
terrorist task force to the north, establishing new police and military 
counterterrorism units, strengthening intelligence collection, 
monitoring and regulating religious messaging, building new border 
control stations, and increasing the size of the gendarmerie and police 
force.
    Finally, Burkina Faso has been a valued partner in promoting 
regional security and combating terrorism. Currently, Burkina Faso has 
1,881 military and police personnel deployed to Mali as part of the 
United Nations Multidimensional Integrated Stabilization Mission in 
Mali (MINUSMA). This includes a recent increase in its commitment from 
one to two 850-member infantry battalions, along with one formed police 
unit.

                               __________

Reponses of Joseph R. Donovan, Jr., nominated to be U.S. Ambassador to 
 the Republic of Indonesia, to Questions from Members of the Committee

               ambassador-designate donovan's responses 
                    to questions from senator cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions? Why were your actions significant?

    Answer. The promotion of human rights and democracy remains a 
cornerstone of U.S. foreign policy and has been central to my work 
throughout my career. During my tenure as Director of the Office of 
Chinese and Mongolian Affairs and later as the Principal Deputy 
Assistant Secretary of State for East Asian and Pacific Affairs, we 
regularly engaged with our missions in the field, the NGO community, 
and Chinese government officials to discuss human rights concerns. As 
Director of the China Desk, I testified before the China Human Right 
Caucus to publicly register U.S. government objections to human rights 
practices in China. While I cannot claim individual success in 
improving the overall human rights situation in China, there were 
significant moments in my career that underscored the importance of our 
efforts.
    One of the most memorable moments for me was calling a family to 
inform them that their mother had been freed from a Chinese prison and 
would arrive in the United States the following day. Her release was 
the result of months of hard work by State Department officials, and I 
am proud to have played a role as China Director.
    In another case, while serving as Consul General in Hong Kong, I 
ensured that we heard from dissidents and countered efforts by the 
People's Republic of China to prevent their participation in a 
Consulate event. As Deputy Chief of Mission at the U.S. Embassy in 
Tokyo, I met with the parents of a young woman who had been abducted 
from Japan by North Korean agents. I worked with U.S. and Japanese 
officials to ensure that the North Korean abduction issue was one 
element of negotiations with North Korea. If confirmed, I will bring 
these experiences to my work to defend and protect the universal values 
of human rights that remain so important for the United States.

    Question. What are the most pressing human rights issues for 
Indonesia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the Indonesia? What 
do you hope to accomplish through these actions?

    Answer. We support Indonesia's efforts to continually improve its 
human rights record and promote the rule of law, consistent with its 
international human rights obligations, as well as the aspirations of 
the Indonesian people. To maintain the positive momentum built over the 
last two decades, we encourage Indonesia to actively protect freedom of 
expression and assembly; conduct transparent and thorough 
investigations into unjustified killings, torture, and abuses by 
security forces; proactively protect the rights of members of minority 
groups, including ethnic minorities, religious minorities, and the 
LGBTI community; reinforce civilian leadership and the provision of 
fair trial guarantees in addressing internal security concerns; and 
protect religious freedoms as outlined in Indonesia's constitution. We 
also encourage openness, transparency, and accountability for past 
human rights violations and abuses.
    The U.S. government regularly engages on human rights issues with 
Government of Indonesia officials and civil society representatives, 
and also uses high-level visits to address these issues. Officers at 
our U.S. Mission in Indonesia consistently discuss, at the highest 
levels, issues of concern as well as areas in which we can work 
together with the Indonesian government to promote and protect human 
rights and fundamental freedoms.
    If confirmed, I will ensure that the U.S. government uses its 
assistance programs--including under USAID, the Department of Justice, 
and the Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs--to support Indonesia's efforts to improve the 
administration of justice. We will continue to leverage our military 
engagement to conduct training and exercises that develop the 
professionalism of the Indonesian military and help to further 
strengthen civilian control over the military. We will continue to 
support Indonesia's successful, civilian-led law enforcement approach 
to counterterrorism that upholds the rule of law and protects human 
rights. I look forward to meeting with Indonesia's women leaders to 
encourage their economic participation and equal access to important 
services like health care. And, I will continue outreach to academics, 
activists, human rights NGOs, and religious leaders to improve our 
understanding of and cooperation with Indonesia's diverse and 
pluralistic society.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Indonesia in 
advancing human rights and democracy in general?

    Answer. Indonesia has made solid progress on human rights, and will 
have to continue efforts to reinforce rule of law and human rights as 
it responds to security threats and counters terrorism. Indonesian 
society must also balance cultural mores and traditions while 
protecting space for minority groups.
    Civil society has flourished in Indonesia since the end of 
military-backed authoritarian rule in 1998, contributing to 
improvements in democratic governance and accountability. Government 
and an independent civil society must work together to further this 
success because greater protection of human rights leads to stability, 
prosperity, tolerance, and opportunity for all. We will continue to 
engage civil society, use technical assistance to support Indonesian 
efforts to bolster administration of justice in Indonesia, and leverage 
our military partnerships to conduct training and exercises that 
strengthen Indonesia's efforts to develop the professionalism and 
civilian control of the military. Our mission also works to support 
Indonesia's efforts to counter the corruption that can undermine 
transparency and accountability important to human rights protection. 
We conduct programs to strengthen the key anti-corruption bodies, 
including the Corruption Eradication Commission (KPK), and support 
Indonesia's participation in the Open Government Partnership.

    Question. Are you committed to meeting with human rights and other 
non-governmental organizations in the U.S. and with local human rights 
NGOs in Indonesia? If confirmed, what steps will you take to pro-
actively support the Leahy Law and related efforts?

    Answer. If confirmed, I am firmly committed to meeting with human 
rights and non-governmental organizations within the United States and 
Indonesia. I look forward to continuing the positive interactions and 
collaboration U.S. Mission Indonesia has already forged with 
established NGOs and civil society organizations, while also reaching 
out to newer and smaller advocacy groups.
    If confirmed, I will proactively support the Leahy Law by ensuring 
our Mission maintains its stringent vetting processes for any member, 
former member, or unit of the Indonesian military or law enforcement 
nominated for training. I will also consistently highlight the 
importance of professionalism, rule of law, and respect for human 
rights in our engagements with Indonesia's police, military, and law 
enforcement counterparts.

    Question. Will you and your embassy team actively engage with 
Indonesia to address cases of key political prisoners or persons 
otherwise targeted by Indonesia?

    Answer. The Jokowi administration has taken positive steps in 
releasing some political prisoners. The political atmosphere has 
improved in recent years, and there are fewer cases of political 
prosecutions. Still, some Indonesians have been arrested and remain in 
prison for peacefully expressing political beliefs. If confirmed, I 
will work with my Embassy team to further engagement on this issue, 
underlining that for democracies to flourish they must protect and 
provide space for a diversity of ideas and political discourse.

    Question. Will you engage with Indonesia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage robustly with Indonesian 
leadership on matters of human rights, civil rights, and governance. As 
the second and third most populous democracies in the world, the United 
States and Indonesia share many values, and Indonesia's peaceful 
transition to democracy offers useful lessons to other countries in 
transition around the world. I will use our bilateral engagement to 
highlight Indonesia's successes and offer cooperation to ensure our 
shared democratic principles are upheld, and to promote respect for 
human rights.

                               __________
               ambassador-designate donovan's responses 
                    to questions from senator rubio

    Question. As the largest Muslim country that has largely controlled 
radical Islam groups, does Indonesia's approach offer any lessons 
learned for combatting terrorism?

    Answer. We support Indonesia's successful, civilian-led, law 
enforcement approach against known violent extremist organizations and 
its efforts to foster community resilience against violent extremist 
mobilization. In addition to an effective law enforcement campaign led 
by the Indonesian National Police, the Indonesian-style practice of 
Islam has served as a bulwark against the spread of violent extremism. 
Indonesia's open, vibrant, and diverse civil society organizations play 
an important role in promoting narratives that counter violent 
extremism, and work at the local level to strengthen core democratic 
values. Indonesia has led regional and international cooperation, 
including hosting an August 10 International Meeting on Counter-
Terrorism, and it actively participates in efforts to counter the flow 
of foreign terrorist fighters and terrorism financing in the UN, the 
Global Counterterrorism Forum, ASEAN, and other venues.

    Question. Are we concerned that Indonesia's counter-terrorism 
tactics are hurting the government's chances of bolstering its counter-
terrorism laws?

    Answer. Indonesian political and law enforcement leaders recognize 
the importance of upholding the rule of law and fair trial guarantees 
even as they continue to successfully detect, disrupt, and arrest 
violent extremists and their networks. We support Indonesia's open 
discussion on amending its counter-terrorism laws to address the threat 
posed by foreign terrorist fighters, prevent terrorist acts, and 
provide security to the public, while at the same time protecting the 
rights of individuals in an open, democratic society.

    Question. As freedom of expression has been restricted in 
Indonesia; what more could the U.S. do to encourage the government to 
respect freedom of speech and expression?

    Answer. Any restrictions on freedom of expression in Indonesia are 
of great concern to me personally and to the United States. The U.S. 
Mission in Indonesia directly engages with Government of Indonesia 
counterparts to share our views on the importance of protecting freedom 
of expression. The Mission supports Indonesian efforts, led by civil 
society organizations and human rights activists, to advocate for 
freedom of expression, a key component of Indonesia's constitution, and 
its international human rights and obligations. If confirmed, I will 
continue to advocate for freedom of speech and expression and support 
efforts and programs in this areas.

    Question. Religious freedom and violence remains a serious problem 
in Indonesia. Do you believe the Indonesian government is doing enough 
to protect religious minorities and allow space for all groups to 
practice their religion peacefully?

    Answer. Indonesia's international human rights obligations and its 
constitution guarantee freedom of religion or belief to everyone, 
including all individuals who are members of a minority faith. This 
freedom includes the right to worship according to one's own beliefs. 
President Jokowi has included religious minorities in his cabinet, and 
the current governor of Jakarta, one of Indonesia's most popular 
politicians, is from the ethnic Chinese minority group and the minority 
Christian faith. The state should continue to protect individuals 
within its borders, particularly members of vulnerable religious 
minorities who often face the most discrimination at the local level. 
We appreciate President Jokowi's calls for tolerance, especially among 
religious communities.

    Question. Protecting women and girls abroad is a major priority for 
the United States. What more can the Indonesian government do to 
protect women and girls from rampant abuse and promote gender equality?

    Answer. Indonesia has made strides in advancing gender equality. 
Indonesian women serve in the most senior levels of government, and 
Indonesia has had a female president. One-third of President Jokowi's 
current cabinet members are women, including the Ministers of Finance, 
Foreign Affairs, and Fisheries and Maritime Resources. Women also lead 
top companies, and act as academicians, scientists, and researchers. 
Indonesia has ratified the U.N. Convention on the Elimination of All 
Forms of Discrimination against Women and implemented laws at the 
national and sub-national level to address gender disparities. The 
Ministry of Women's Empowerment and Child Protection works to 
mainstream gender in government policies, programs, and budgets and 
eliminate gender discrimination and violence against women.
    Despite these advances, more can be done to support efforts to 
empower women in Indonesia. Mission Indonesia has incorporated gender 
equality and the advancement of women and girls into overall policy 
objectives, programming, and outreach. In collaboration with the 
Government of Indonesia, the Mission organized a multi-stakeholder 
planning conference to prioritize efforts to combat violence against 
women. Additionally, the U.S. Consulate General in Surabaya supports, 
through a PEPFAR grant, a local women's hotline project to prevent and 
respond to gender-based violence among women and girls in East Java and 
throughout eastern Indonesia. A recently announced $7.3 million USAID-
funded project, ``Bersama,'' supports Indonesia's efforts to reduce 
acceptance of gender based violence.
    If confirmed, I will ensure that advancing the status of women and 
girls remains a top priority for U.S. Mission Indonesia.

    Question. In 2006, Indonesia passed a law requiring minority 
religious groups to collect signatures from the local majority group 
before building houses of worship. Since the passage of this so-called 
"religious harmony" bill more than 1,000 Indonesian churches have 
reportedly been shuttered and untold numbers of others have never been 
built. To what extent do you plan to make religious freedom a priority 
in your dealings with the government of Indonesia? Are reforms to this 
legislation a current focus in U.S.-Indonesian relations?

    Answer. Indonesia's international human rights obligations and its 
constitution guarantee freedom of religion or belief, which includes 
the right to worship according to one's own beliefs. Mission Indonesia 
supports the efforts of the Indonesian government, the public, NGOs, 
and civil society organizations to promote religious tolerance and 
understanding. We also regularly raise the issue of religious freedom 
and tolerance with the government, including expressing concern over 
the closure of houses of worship and supporting the freedom for all 
religious communities to build and maintain their respective houses of 
worship. Civil society leaders from Indonesia and the United States 
jointly launched in August 2016 a Council on Religion and Pluralism to 
foster religious understanding. If confirmed, I will continue to engage 
Indonesian government counterparts, NGOs, and civil society to promote 
religious freedom and freedom of worship.

                               __________


 
                           INDEX OF NOMINEES

                              ----------                              

Key:

    Bold = Confirmed by the Senate
    Italic = Returned to the President
    Cap and Small Cap = Withdrawn by the President
    A second page number indicates the location of the nominee's 
responses to additional questions from members of the committee.


                                   A

Adams, Jr., Charles C. -- Ambassador to Finland -- 10, 23

Allen, Scott -- U.S. Director of the European Bank for Reconstruction 
        and Development -- 460

Alsup, Carolyn Patricia -- Ambassador to The Gambia -- 428

                                   B

Barr, Ann Calvaresi -- Inspector General, U.S. Agency for International 
        Development -- 448

Bitter, Rena -- Ambassador to the Lao People's Democratic Republic -- 
        1033, 1059

Bodde, Hon. Peter William -- Ambassador to Libya -- 563, 583

Bond, Hon. Michele Thoren -- Assistant Secretary of State (Consular 
        Affairs), -- 290

Butts, Cassandra Q. -- Ambassador to the Bahamas -- 33, 57

                                   C

Casper, Anne S -- Ambassador Burundi -- 928 941

Chapman, Todd C. -- Ambassador to the Republic of Ecuador -- 715, 756

Coppedge, Susan -- Director of the Office to Monitor and Combat 
        Trafficking -- 479, 492

                                   D

Dandekar, Swati A. -- U.S. Executive Director of the Asian Development 
        Bank -- 812, 829

Davies, Glyn Townsend -- Ambassador of Thailand -- 234, 274

Delawie, Gregory T. -- Ambassador to Kosov, -- 126

Dhanani, Katherine Simonds -- Ambassador to Somalia -- 36, 60

Dogu, Laura Farnsworth -- Ambassador to Nicaragua -- 315, 360

Doherty, Kathleen Ann -- Ambassador to the Republic of Cyprus -- 382, 
        404

Donovan, Joseph R. -- Ambassador to the Republic of Indonesia -- 1068, 
        1089

                                   E

Ebert-Gray, Catherine -- Ambassador to Papua New Guinea, the Solomon 
        Islands, and Vanuatu -- 691, 736

Egan, Brian James -- Legal Adviser of the Department of State -- 84, 
        117

Elder, Christine Ann -- Ambassador to Liberia -- 841, 866

Escobari, Marcela -- Assistant Administrator of the United States 
        Agency for International Development -- 817, 832

Estrada, John L. -- Ambassador to Trinidad and Tobago -- 457, 473

Etim, Linda I. -- Assistant Administrator of the U.S. Agency for 
        International Development -- 510, 527

                                   F

Feeley, John D. -- Ambassador to the Republic of Panama, -- 709, 749

Folmsbee, Paul A., -- Ambassador to the Republic of Mali -- 27, 47

Furuta-Toy, Julie -- Ambassador to of Equatorial Guinea -- 505, 525

                                   G

Galt, Jennifer Zimdahl -- Ambassador to Mongolia -- 241

Gilmour, David R. -- Ambassador to the Togolese Republic -- 419, 439

Guilarte, Mileydi -- U.S. Alternate Executive Director of the Inter-
        American Development Bank -- 71, 106

Gwaltney, Sheila -- Ambassador to the Kyrgyz Republic -- 261, 280

                                   H

Hale, David -- Ambassador to the Pakistan 255, 276

Hall, Anne -- Ambassador to the Republic of Lithuania -- 946, 986

Haney, Stafford Fitzgerald -- Ambassador to Costa Rica -- 2, 21

Hankins, Dennis B. -- Ambassador to f Guinea -- 508, 526

Harden, R. David -- Assistant Administrator of the United States Agency 
        for International Development -- 844, 871

Haverkamp, Jennifer Ann -- Assistant Secretary of State (Oceans and 
        International Environmental and Scientific Affairs) -- 74, 109

Hawkins, Jeffrey J. Jr. -- Ambassador to the Central African Republic 
        -- 422, 440

Heidt, William A. -- Ambassador to f Cambodia -- 237, 275

Heins, Samuel D. -- Ambassador to the Kingdom of Norway -- 376

Hill, G. Kathleen -- Ambassador to the Republic of Malta -- 0768

Hochstein, Amos J. -- Assistant Secretary of State (Energy Resources) 
        -- 687, 726

Holgate, Laura S.H. -- U.S. Rep. to the International Atomic Energy 
        Agency, and to the Vienna Office of the United Nations -- 609, 
        644

Holloway, Perry L. -- Ambassador to Guyana -- 317, 362

                                   J

Jackson, Hon. Robert Porter -- Ambassador -- 499, 523

Jacobson, Hon. Roberta S. -- Ambassador to the United Mexican States -- 
        313, 339

Jones, Hon. Paul Wayne -- Ambassador to Poland -- 371

                                   K

Keiderling-Franz, Kelly -- Ambassador to Uruguay -- 859, 899

Kelly, Ian C. -- Ambassador to Georgia -- 131

Keshap, Atul -- Ambassador to Sri Lanka and Maldives -- 263, 282

Kim, Hon. Sung Y -- Ambassador to the Philippines -- 1030, 1047

Klemm, Hon. Hans G. -- Ambassador to Romania -- 373

                                   L

Lakhdhir, Amala Shirin -- Ambassador to Malaysia -- 1036, 1052

Leonard, Hon. Mary Beth -- U.S. Representative to the African Union -- 
        925, 939

                                   M

Malack, Hon. Deborah R. -- Ambassador of Uganda -- 659, 677

Manes, Jean Elizabeth -- Ambassador to the Republic of El Salvador -- 
        712, 752

Marciel, Hon. Scot Alan -- Ambassador to the Union of Burma -- 693, 737

Matthews, Matthew John -- United States Senior Official for the Asia-
        Pacific Economic Cooperation, APEC, Forum -- 814, 831

McGuire, Matthew T. -- U.S. Executive Director of the International 
        Bank for Reconstruction and Development -- 6

McKean, David -- Ambassador to Luxembourg -- 765

McKinley, Hon. Peter Michael -- nominated to be Ambassador to the 
        Federative Republic of Brazil -- 969, 1009

Melia, Thomas O. -- Assistant Administrator of the U.S. Agency for 
        International Development -- 385, 404

Melville, James Desmond Jr., -- Ambassador to the Republic of Estonia 
        -- 379, 403

Mendelson, Dr. Sarah -- U.S. Rep.to the U.N. Economic and Social 
        Council. and U.S. Alternate Representative. to the General 
        Assembly of the U.N. -- 299, 307

Millard, Elisabeth I. -- Ambassador to Tajikistan -- 569, 585

Morton, John -- Exec. VP of the Overseas Private Investment Corporation 
        -- 558, 582

Mulrean, Peter F. -- of Ambassador to Haiti -- 320, 363

                                   N

Nolan ,Edwin Richard, Jr. -- Ambassador to Suriname -- 454, 472

Noyes, Julieta Valls -- Ambassador to the Republic of Croatia, -- 139

                                   O

Occomy,Marcia Denise -- U.S. Director of the African Development Bank 
        -- 79, 113

                                   P

Pasi, Hon. Geeta -- Ambassador to Chad -- 923, 935

Perez, Carol Z. -- Ambassador to the Republic of Chile -- 974, 1022

Peterson, Lisa J. -- Ambassador to Swaziland -- 662, 680

Pettit, Nancy Bikoff -- Ambassador to the Republic of Latvia -- 133

Phee, Mary Catherine -- Ambassador to South Sudan -- 30, 52

Pittman, H. Dean -- Ambassador to Mozambique -- 665, 681

Pyatt, Hon. Geoffrey R. -- Ambassador to Greece -- 953, 995

                                   R

Raji, Azita -- Ambassador to Sweden, -- 136

Richard, Elizabeth Holzhall -- Ambassador to the Lebanese Republic -- 
        847, 881

Riley, Robert Annan, III -- Ambassador to Micronesia -- 808

Robinson, David Malcolm -- Assistant Secretary of State (Conflict and 
        Stabilization Operations) and Coordinator for Reconstruction 
        and Stabilization -- 451

Rubin, Eric Seth -- Ambassador to the Republic of Bulgaria -- 771, 797

Rubinstein, Daniel H. -- Ambassador to the Republic of Tunisia -- 425, 
        443

                                   S

Sabharwal, Sunil -- U.S. Alternate Executive Director of the 
        International Monetary Fund -- 82

Schwartz, Stephen Michael -- Ambassador to Somalia -- 850, 888

Scott, Kyle R. -- Ambassador to the Republic of Serbia -- 774, 798

Shannon, Hon. Thomas A. Jr. -- Under Secretary of State (Political 
        Affairs) -- 589, 629

Sievers, Marc Jonathan -- Ambassador to Oman -- 566, 585

Silliman, Hon. Douglas Allan -- Ambassador to the Republic of Iraq -- 
        965, 1004

Silverman, Lawrence Robert -- Ambassador to the State of Kuait -- 971, 
        1019

Smith, Gayle -- Administrator of the U.S. Agency for International 
        Development -- 158, 185

Smith, Gentry O. -- Director of the Office of Foreign Missions -- 8

Sobel, Mark -- United States Executive Director of the International 
        Monetary Fund -- 861, 905

Sterling, Adam H. -- Ambassador to the Slovac Republic -- 861, 913

Stewart, Hon. Karen Brevard -- Ambassador to Marshall Islands -- 804

Symington, Hon. W. Stuart -- Ambassador to the Federal Republic of 
        Nigeria -- 1061, 1079

                                   T

Taglialatela, Linda Swartz -- Ambassador to Barbados, St. Kitts and 
        Nevis, Saint Lucia, Antigua and Barbuda, Dominica, Grenada, and 
        Saint Vincent and the Grenadines -- 706, 745

Tamlyn, Lucy -- Ambassador to the Republic of Benin -- 417, 439

Teplitz , Alaina B. -- Ambassador to Nepal -- 258

Thomas, Hon. Harry K. Jr. -- Ambassador to Zimbabwe -- 502, 524

Torres, Carlos J. -- Deputy Director of the Peace Corps -- 778

                                   W

Ward, Kenneth Damian -- U.S. Rep. to the Organization for the 
        Prohibition of Chemical Weapons -- 560, 583

                                   Y

Young, Andrew Robert -- Ambassador to Burkina Faso -- 1064, 1086

Yovanovitch, Hon. Marie L. -- Ambassador to Ukraine -- 950, 992

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
